<html>
<title> - S. Hrg. 111-362 NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 111TH CONGRESS</title>
<body><pre>[Senate Hearing 111-362]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 111-362

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             111TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

WILLIAM J. LYNN; ROBERT F. HALE; MICHELE FLOURNOY; JEH CHARLES JOHNSON; 
DR. ASHTON B. CARTER; DR. JAMES N. MILLER, JR.; AMBASSADOR ALEXANDER R. 
  VERSHBOW; RAYMOND E. MABUS, JR.; ROBERT O. WORK; ELIZABETH L. KING; 
DONALD M. REMY; DR. MICHAEL NACHT; WALLACE C. GREGSON; JO-ELLEN DARCY; 
  DR. INES R. TRIAY; ANDREW C. WEBER; DR. PAUL N. STOCKTON; THOMAS R. 
  LAMONT; CHARLES A. BLANCHARD; ADM JAMES G. STAVRIDIS, USN; LT. GEN. 
  DOUGLAS M. FRASER, USAF; LTG STANLEY A. McCHRYSTAL, USA; GORDON S. 
HEDDELL; DR. J. MICHAEL GILMORE; ZACHARY J. LEMNIOS; LT. GEN. DENNIS M. 
  McCARTHY, USMC (RET.); DR. JAMES M. MORIN; DANIEL G. GINSBERG; GEN. 
  JAMES E. CARTWRIGHT, USMC; ADM ROBERT F. WILLARD, USN; HON. JOHN M. 
  McHUGH; DR. JOSEPH W. WESTPHAL; JUAN M. GARCIA III; ADM MICHAEL G. 
MULLEN, USN; CHRISTINE H. FOX; FRANK KENDALL III; GLADYS COMMONS; TERRY 
A. YONKERS; DR. CLIFFORD L. STANLEY; ERIN C. CONATON; LAWRENCE G. ROMO; 
DOUGLAS B. WILSON; DR. MALCOLM ROSS O'NEILL; MARY SALLY MATIELLA; PAUL 
   LUIS OOSTBURG SANZ; JACKALYNE PFANNENSTIEL; AND DR. DONALD L. COOK

                               ----------                              

    JANUARY 15; MARCH 26; APRIL 28; MAY 12; JUNE 2, 11; JULY 9, 30; 
        SEPTEMBER 15; OCTOBER 22; NOVEMBER 19; DECEMBER 17, 2009

                               ----------                              

         Printed for the use of the Committee on Armed Services


<DOC>
<HEAD>

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             111TH CONGRESS

 
55-953 PDF

2010

                                                        S. Hrg. 111-362

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             111TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

WILLIAM J. LYNN; ROBERT F. HALE; MICHELE FLOURNOY; JEH CHARLES JOHNSON; 
DR. ASHTON B. CARTER; DR. JAMES N. MILLER, JR.; AMBASSADOR ALEXANDER R. 
  VERSHBOW; RAYMOND E. MABUS, JR.; ROBERT O. WORK; ELIZABETH L. KING; 
DONALD M. REMY; DR. MICHAEL NACHT; WALLACE C. GREGSON; JO-ELLEN DARCY; 
  DR. INES R. TRIAY; ANDREW C. WEBER; DR. PAUL N. STOCKTON; THOMAS R. 
  LAMONT; CHARLES A. BLANCHARD; ADM JAMES G. STAVRIDIS, USN; LT. GEN. 
  DOUGLAS M. FRASER, USAF; LTG STANLEY A. McCHRYSTAL, USA; GORDON S. 
HEDDELL; DR. J. MICHAEL GILMORE; ZACHARY J. LEMNIOS; LT. GEN. DENNIS M. 
  McCARTHY, USMC (RET.); DR. JAMES M. MORIN; DANIEL G. GINSBERG; GEN. 
  JAMES E. CARTWRIGHT, USMC; ADM ROBERT F. WILLARD, USN; HON. JOHN M. 
  McHUGH; DR. JOSEPH W. WESTPHAL; JUAN M. GARCIA III; ADM MICHAEL G. 
MULLEN, USN; CHRISTINE H. FOX; FRANK KENDALL III; GLADYS COMMONS; TERRY 
A. YONKERS; DR. CLIFFORD L. STANLEY; ERIN C. CONATON; LAWRENCE G. ROMO; 
DOUGLAS B. WILSON; DR. MALCOLM ROSS O'NEILL; MARY SALLY MATIELLA; PAUL 
   LUIS OOSTBURG SANZ; JACKALYNE PFANNENSTIEL; AND DR. DONALD L. COOK

                               __________

    JANUARY 15; MARCH 26; APRIL 28; MAY 12; JUNE 2, 11; JULY 9, 30; 
        SEPTEMBER 15; OCTOBER 22; NOVEMBER 19; DECEMBER 17, 2009

                               __________

         Printed for the use of the Committee on Armed Services


?

  

                      COMMITTEE ON ARMED SERVICES

                   (From January through August 2009)

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                      COMMITTEE ON ARMED SERVICES

                  (From August through December 2009)

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
MARK UDALL, Colorado                 DAVID VITTER, Louisiana
KAY R. HAGAN, North Carolina         SUSAN M. COLLINS, Maine
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR, Massachusetts

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            january 15, 2009

Nominations of William J. Lynn III to be Deputy Secretary of 
  Defense; Robert F. Hale to be Under Secretary of Defense 
  (Comptroller) and Chief Financial Officer; Michele Flournoy to 
  be Under Secretary of Defense for Policy; and Jeh Charles 
  Johnson to be General Counsel, Department of Defense...........     1

Statements of:

Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....     6
Skelton, Hon. Ike, U.S. Representative from the State of Missouri     8
Menendez, Hon. Robert, U.S. Senator from the State of New Jersey.     9
Lynn, William J., III, Nominee to be Deputy Secretary of Defense.    10
Hale, Robert F., Nominee to be Under Secretary of Defense 
  (Comptroller) and Chief Financial Officer......................    12
Flournoy, Michele, Nominee to be Under Secretary of Defense for 
  Policy.........................................................    14
Johnson, Jeh Charles, Nominee to be General Counsel, Department 
  of Defense.....................................................    15

                             march 26, 2009

Nominations of Dr. Ashton B. Carter to be Under Secretary of 
  Defense for Acquisition, Technology, and Logistics; Dr. James 
  N. Miller, Jr., to be Deputy Under Secretary of Defense for 
  Policy; and Ambassador Alexander R. Vershbow to be Assistant 
  Secretary of Defense for International Security Affairs........   181

Statements of:

Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................   183
Carter, Ashton B., Ph.D., Nominee to be Under Secretary of 
  Defense for Acquisition, Technology, and Logistics.............   186
Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....   188
Miller, James N., Jr., Ph.D., Nominee to be Deputy Under 
  Secretary of Defense for Policy................................   189
Vershbow, Hon. Alexander D., Nominee to be Assistant Secretary of 
  Defense for International Security Affairs.....................   190

                             april 28, 2009

Nominations of Raymond E. Mabus, Jr., to be Secretary of the 
  Navy; Robert O. Work to be Under Secretary of the Navy; 
  Elizabeth L. King to be Assistant Secretary of Defense for 
  Legislative Affairs; Donald M. Remy to be General Counsel of 
  the Department of the Army; Dr. Michael Nacht to be Assistant 
  Secretary of Defense for Global Strategic Affairs; Wallace C. 
  Gregson to be Assistant Secretary of Defense for Asian and 
  Pacific Security Affairs; Jo-Ellen Darcy to be Assistant 
  Secretary of the Army for Civil Works; and Dr. Ines R. Triay to 
  be Assistant Secretary of Energy for Environmental Management..   321

                                  iii

Statements of:

Baucus, Hon. Max, U.S. Senator from the State of Montana.........   323
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...   324
Wicker, Hon. Roger F., U.S. Senator from the State of Mississippi   325
Landrieu, Hon. Mary L., U.S. Senator from the State of Louisiana.   326
Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....   327
Mabus, Raymond E. Jr., Nominee to be Secretary of the Navy.......   329
Work, Robert O., Nominee to be Under Secretary of the Navy.......   331
King, Elizabeth L., Nominee to be Assistant Secretary of Defense 
  for Legislative Affairs........................................   333
Remy, Donald M., Nominee to be General Counsel of the Department 
  of the Army....................................................   333
Webb, Hon. Jim, U.S. Senator from the State of Virginia..........   428
Nacht, Dr. Michael, Nominee to be Assistant Secretary of Defense 
  for Global Strategic Affairs...................................   432
Gregson, Wallace C., Nominee to be Assistant Secretary of Defense 
  for Asian and Pacific Security Affairs.........................   433
Darcy, Jo-Ellen, Nominee to be Assistant Secretary of the Army 
  for Civil Works................................................   433
Triay, Dr. Ines R., Nominee to be Assistant Secretary of Energy 
  for Environmental Management...................................   434

                              may 12, 2009

Nominations of Andrew C. Weber to be Assistant to the Secretary 
  of Defense for Nuclear and Chemical and Biological Defense 
  Programs; Dr. Paul N. Stockton to be Assistant Secretary of 
  Defense for Homeland Defense and Americas' Security Affairs; 
  Thomas R. Lamont to be Assistant Secretary of the Army for 
  Manpower and Reserve Affairs; and Charles A. Blanchard to be 
  General Counsel of the Department of the Air Force.............   615

Statements of:

Lugar, Hon. Richard G., U.S. Senator from the State of Indiana...   618
Durbin, Hon. Richard, U.S. Senator from the State of Illinois....   619
Farr, Hon. Sam, U.S. Representative from the State of California.   620
Weber, Andrew C., Nominee to be Assistant to the Secretary of 
  Defense for Nuclear and Chemical and Biological Defense 
  Programs.......................................................   622
Stockton, Dr. Paul N., Nominee to be Assistant Secretary of 
  Defense for Homeland Defense and Americas' Security Affairs....   623
Lamont, Thomas R., Nominee to be Assistant Secretary of the Army 
  for Manpower and Reserve Affairs...............................   623
Blanchard, Charles A., Nominee to be General Counsel of the 
  Department of the Air Force....................................   624

                              june 2, 2009

Nominations of ADM James G. Stavridis, USN, for Reappointment to 
  the Grade of Admiral and to be Commander, U.S. European Command 
  and Supreme Allied Commander, Europe; Lt. Gen. Douglas M. 
  Fraser, USAF, to be General and Commander, U.S. Southern 
  Command; and LTG Stanley A. McChrystal, USA, to be General and 
  Commander, International Security Assistance Force and 
  Commander, U.S. Forces, Afghanistan............................   717

Statements of:

Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......   721
Stavridis, ADM James G., USN, Nominee for Reappointment to the 
  Grade of Admiral and to be Commander, U.S. European Command and 
  Supreme Allied Commander, Europe...............................   723
Fraser, Lt. Gen. Douglas M., USAF, Nominee to be General and 
  Commander, U.S. Southern Command...............................   724
McChrystal, LTG Stanley A., USA, Nominee to be General and 
  Commander, International Security Assistance Force and 
  Commander, U.S. Forces, Afghanistan............................   725

                             june 11, 2009

Nominations of Gordon S. Heddell to be Inspector General, 
  Department of Defense; Dr. J. Michael Gilmore to be Director of 
  Operational Test and Evaluation, Department of Defense; Zachary 
  J. Lemnios to be Director of Defense Research and Engineering; 
  Lt. Gen. Dennis M. McCarthy, USMC (Ret.), to be Assistant 
  Secretary of Defense for Reserve Affairs; Dr. James M. Morin to 
  be Assistant Secretary of the Air Force for Financial 
  Management and Comptroller; and Daniel B. Ginsberg to be 
  Assistant Secretary of the Air Force for Manpower and Reserve 
  Affairs........................................................   837

Statements of:

Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...   841
Conrad, Hon. Kent, U.S. Senator from the State of North Dakota...   843
Heddell, Gordon S., Nominee to be Inspector General, Department 
  of Defense.....................................................   845
Gilmore, Dr. J. Michael, Nominee to be Director of Operation Test 
  and Evaluation, Department of Defense..........................   845
Lemnios, Zachary J., Nominee to be Director of Defense Research 
  and Engineering................................................   846
McCarthy, Lt. Gen. Dennis M., USMC (Ret.), Nominee to be 
  Assistant Secretary of Defense for Reserve Affairs.............   859
Morin, Dr. James M., Nominee to be Assistant Secretary of the Air 
  Force for Financial Management and Comptroller.................   860
Ginsberg, Daniel B., Nominee to be Assistant Secretary of the Air 
  Force for Manpower and Reserve Affairs.........................   861

                              july 9, 2009

Nominations of Gen. James E. Cartwright, USMC, for Reappointment 
  to the Grade of General and Reappointment as the Vice Chairman 
  of the Joint Chiefs of Staff; and ADM Robert F. Willard, USN, 
  for Reappointment to the Grade of Admiral and to be Commander, 
  U.S. Pacific Command...........................................   975

Statements of:

Inouye, Hon. Daniel K., U.S. Senator from the State of Hawaii....   976
Cartwright, Gen. James E., USMC, Nominee for the Position of Vice 
  Chairman of the Joint Chiefs of Staff..........................   980
Willard, ADM Robert F., USN, Nominee to be Commander, U.S. 
  Pacific Command................................................   981

                             july 30, 2009

Nominations of Hon. John M. McHugh to be Secretary of the Army; 
  Dr. Joseph W. Westphal to be the Under Secretary of the Army; 
  and Juan M. Garcia III to be Assistant Secretary of the Navy 
  for Manpower and Reserve Affairs...............................  1073

Statements of:

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...  1076
Schumer, Hon. Charles E., U.S. Senator from the State of New York  1076
Collins, Hon. Susan, U.S. Senator from the State of Maine........  l079
Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.  1081
Cornyn, Hon. John, U.S. Senator from the State of Texas..........  1082
McHugh, Hon. John M., Nominee to be Secretary of the Army........  1083
Westphal, Dr. Joseph W., Nominee to be Under Secretary of the 
  Army...........................................................  1085
Garcia, Juan M., III, Nominee to be Assistant Secretary of the 
  Navy for Manpower and Reserve Affairs..........................  1086

                           september 15, 2009

Nomination of ADM Michael G. Mullen, USN, for Reappointment to 
  the Grade of Admiral and Reappointment as the Chairman of the 
  Joint Chiefs of Staff..........................................  1225

Statement of:

Mullen, ADM Michael G., USN, Nominee for Reappointment to be 
  Chairman, Joint Chiefs of Staff................................  1231

                            october 22, 2009

Nominations of Christine H. Fox to be Director of Cost Assessment 
  and Program Evaluation, Department of Defense; Frank Kendall 
  III to be Deputy Under Secretary of Defense for Acquisition and 
  Technology; Gladys Commons to be Assistant Secretary of the 
  Navy for Financial Management and Comptroller; and Terry A. 
  Yonkers to be Assistant Secretary of the Air Force for 
  Installations and Environment..................................  1333

Statements of:

Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....  1336
Fox, Christine H., Nominee to be Director of Cost Assessment and 
  Program Evaluation, Department of Defense......................  1338
Kendall, Frank, III, Nominee to be Deputy Under Secretary of 
  Defense for Acquisition and Technology.........................  1339
Commons, Gladys, Nominee to be Assistant Secretary of the Navy 
  for Financial Management and Comptroller.......................  1340
Yonkers, Terry A., Nominee to be Assistant Secretary of the Air 
  Force for Installations and Environment........................  1341

                           november 19, 2009

Nominations of Dr. Clifford L. Stanley to be Under Secretary of 
  Defense for Personnel and Readiness; Erin C. Conaton to be 
  Under Secretary of the Air Force; and Lawrence G. Romo to be 
  Director of the Selective Service System.......................  1443

Statements of:

Skelton, Hon. Ike, U.S. Representative from the State of Missouri  1446
Stanley, Dr. Clifford L., Nominee to be Under Secretary of 
  Defense for Personnel and Readiness............................  1448
Conaton, Erin C., Nominee to be Under Secretary of the Air Force.  1449
Romo, Lawrence G., Nominee to be Director of the Selective 
  Service........................................................  1450

                           december 17, 2009

Nominations of Douglas B. Wilson to be Assistant Secretary of 
  Defense of Public Affairs; Dr. Malcolm Ross O'Neill to be 
  Assistant Secretary of the Army for Acquisition, Logistics, and 
  Technology; Mary Sally Matiella to be Assistant Secretary of 
  the Army for Financial Management and Comptroller; Paul Luis 
  Oostburg Sanz to be General Counsel of the Department of the 
  Navy; Jackalyne Pfannenstiel to be Assistant Secretary of the 
  Navy for Installations and Environment; and Dr. Donald L. Cook 
  to be Deputy Administrator for Defense Programs, National 
  Nuclear Security Administration................................  1535

Statements of:

Skelton, Hon. Ike, U.S. Representative from the State of Missouri  1538
Shaheen, Hon. Jeanne, U.S. Senator from the State of New 
  Hampshire......................................................  1539
Wilson, Douglas B., Nominee to be Assistant Secretary of Defense 
  for Public Affairs.............................................  1542
O'Neill, Dr. Malcolm Ross, Nominee to be Assistant Secretary of 
  the Army for Acquisition, Logistics, and Technology............  1543
Matiella, Mary Sally, Nominee to be Assistant Secretary of the 
  Army for Financial Management and Comptroller..................  1544
Sanz, Paul Luis Oostburg, Nominee to be General Counsel of the 
  Department of the Navy.........................................  1545
Pfannenstiel, Jackalyne, Nominee to be Assistant Secretary of the 
  Navy for Installations and Environment.........................  1546
Cook, Dr. Donald L., Nominee to be Deputy Administrator for 
  Defense Programs, National Nuclear Security Administration.....  1547

APPENDIX.........................................................  1667

 
 NOMINATIONS OF WILLIAM J. LYNN III TO BE DEPUTY SECRETARY OF DEFENSE; 
ROBERT F. HALE TO BE UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND CHIEF 
 FINANCIAL OFFICER; MICHELE FLOURNOY TO BE UNDER SECRETARY OF DEFENSE 
 FOR POLICY; AND JEH CHARLES JOHNSON TO BE GENERAL COUNSEL, DEPARTMENT 
                               OF DEFENSE

                              ----------                              


                       THURSDAY, JANUARY 15, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, E. 
Benjamin Nelson, Webb, McCaskill, McCain, Inhofe, Chambliss, 
Graham, Thune, and Wicker.
    Other Senators present: Senators Hagan, Begich, Menendez, 
and Udall.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Michael J. Kuiken, professional staff member; Peter K. Levine, 
general counsel; William G.P. Monahan, counsel; John H. Quirk 
V, professional staff member; Arun A. Seraphin, professional 
staff member; Russell L. Shaffer, counsel; and William K. 
Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; William M. Caniano, professional staff member; 
Richard H. Fontaine, Jr., deputy Republican staff director; 
David M. Morriss, minority counsel; Lucian L. Niemeyer, 
professional staff member; Diana G. Tabler, professional staff 
member; Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Kevin A. Cronin, Jessica L. 
Kingston, and Christine G. Lang.
    Committee members' assistants present: Bethany Bassett and 
Jay Maroney, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Elizabeth King, assistant to Senator 
Reed; Bonnie Berge, assistant to Senator Akaka; Christopher 
Caple, assistant to Senator Bill Nelson; Christiana Gallagher, 
assistant to Senator Ben Nelson; Jon Davey, assistant to 
Senator Bayh; Jennifer Park and Gordon I. Peterson, assistants 
to Senator Webb; Stephen C. Hedger and Elizabeth McDermott, 
assistants to Senator McCaskill; Anthony J. Lazarski and Nathan 
Reese, assistants to Senator Inhofe; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Adam G. Brake, assistant to 
Senator Graham; Jason Van Beek, assistant to Senator Thune; 
Brian W. Walsh, assistant to Senator Martinez; and Erskine W. 
Wells III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Bill Lynn to be Deputy Secretary of Defense; Robert Hale to be 
Under Secretary of Defense (Comptroller); Michele Flournoy to 
be Under Secretary of Defense for Policy; and Jeh Charles 
Johnson to be General Counsel of the Department of Defense 
(DOD).
    This is the first meeting of the 111th Congress, so I want 
to begin by welcoming back all of our members, starting with 
our ranking member--although he's not here at the moment, he 
can't be here until a little later in the hearing. We all know 
that Senator McCain had hoped to be serving in a somewhat 
different position, but we're delighted to have him back, and 
we welcome the huge contribution that he has made, and will 
continue to make, to this committee, to Congress, and to the 
Nation.
    I also want to extend a special welcome to our new members: 
Senator Hagan, who is here, Senator Begich who is here--I did 
not see Senator Udall, he's not here yet. They--although 
technically not members yet of the committee--are going to be 
members both technically and in reality, in a few days. So 
we've invited them to join us at today's hearing and they'll be 
free to ask questions if they'd like, later on. We're delighted 
to have you both here.
    The Senate Armed Services Committee has, I think, and our 
new members particularly will find out, a real determination to 
act on a bipartisan basis. We are a committee that historically 
has acted that way, it's been our hallmark. It's been something 
we've been very proud of, it's something we protect.
    The commitment to national defense is not a partisan 
commitment on the part of any Member of Congress, and it is 
surely something which we feel very strongly about, this common 
commitment to the security of our Nation, and to the men and 
women in uniform who put themselves in harm's way for our good.
    We look forward to working with you. I know every member of 
the committee feels that way, regardless of party affiliation. 
This year our committee is in a unique position because we have 
a new administration, but we do not have a new nominee for 
Secretary of Defense.
    We asked Secretary Gates to return to the committee on 
January 27, to provide us with his views, and the views of the 
incoming administration on challenges facing DOD. That hearing 
is going to give us the opportunity to ask many of the 
questions that we might have asked a new nominee.
    Today we're going to hear from nominees for four of the 
most senior positions at DOD who serve directly under the 
Secretary. We welcome our nominees and their families to 
today's hearing. We will tell our nominees' families something 
that many of them already know from previous experience. That 
is that senior DOD officials put in long hours, and they make 
sacrifices for the Nation's good, and their families make 
sacrifices, as well, to make it possible for the officials to 
serve our country, and to take out the kind of time that is 
necessary from their lives, and that will also come from your 
lives.
    So we thank the families for their service, as well as our 
nominees for their willingness to serve our Nation. We'll ask 
the nominees to introduce their families as we call upon them 
later, for their opening statements.
    Each of our nominees has a distinguished career of public 
service, and a strong commitment to the Nation's defense. They 
are exceptionally well-qualified, and the committee looks 
forward to working with them, and hopefully a swift 
confirmation.
    Mr. Lynn served in DOD from 1993 to 2001, first as Director 
of Program Analysis and Evaluation (PA&E) and then as DOD 
Comptroller.
    Mr. Hale served in the Department as Air Force Comptroller 
from 1994 to 2001. Before that, he spent 12 years as the head 
of the Defense Unit of the Congressional Budget Office (CBO).
    Ms. Flournoy served as Principal Deputy Assistant Secretary 
of Defense for Strategy in the 1990s, and helped prepare the 
2001 Quadrennial Defense Review (QDR).
    Mr. Johnson has served as General Counsel of the Air Force 
from 1998 to 2001.
    Mr. Lynn also gained, we think, his most important 
experience before he went to the Pentagon, and that is when he 
spent 6 years working with this committee as Senator Kennedy's 
military legislative assistant. We look forward to having 
Senator Kennedy back with us, he is looking very good, and 
sounding good. We look forward to his coming back.
    But in the meantime, Bill, we want to make reference to the 
fact that you cut some of your teeth here, with this committee, 
and that will serve you in good stead, we believe, in your new 
position.
    If confirmed, our nominees will resume substantial 
responsibility for leading DOD at a critical time. Almost 
200,000 U.S. soldiers, sailors, airmen, and marines are 
deployed far from home. As we meet here, they're in Iraq and 
Afghanistan and Kuwait and other theaters around the world.
    After more than 7 years of war, our military--particularly 
our ground forces--are stressed. Many of our troops have been 
worn out, their families have been faced--as they have--with 
repeated deployments. Our equipment is being used up.
    At the same time, DOD spends hundreds of billions of 
dollars every year on the acquisition of products and services. 
The Government Accountability Office (GAO) reported last year 
that cost overruns on the Department's 95 largest acquisition 
programs now total almost $300 billion over the original 
program estimates, even though the Department has cut unit 
quantities and reduced performance expectations on many 
programs to reduce costs.
    At a time when the Federal budget is under extraordinary 
strain, as a result of the economic crisis we face, we cannot 
afford this kind of continued inefficiency.
    Our Nation faces a host of challenges at home and abroad. 
Our witnesses today are going to help the Department and this 
country face those challenges. I'm confident that our 
nominees--working with the President-elect, Secretary Gates, 
others in the incoming administration, and with this 
committee--will do everything in their power to ensure that our 
Nation meets the challenges that face us. We look forward to 
hearing their views.
    As I indicated, Senator McCain has informed us that he will 
be here later in the morning, and we will then give him an 
opportunity to make an opening statement. But in his absence we 
will call upon Senator Inhofe to make whatever statement that 
he might wish to make before we call upon those that are going 
to be introducing our nominees.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I am sitting in for Senator McCain until he 
arrives, and he has a statement I'd like to enter into the 
record at this point.
    Chairman Levin. It will be made part of the record.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Senator Levin.
    I join you in welcoming our nominees. I thank them for their 
willingness to serve in the new administration, and I look forward to 
working with Secretary Gates and the new members of his leadership team 
on the numerous challenges facing the Department of Defense (DOD).
    Mr. Lynn, Ms. Flournoy, Mr. Hale, and Mr. Johnson have each 
previously served in important positions in the Department. I 
appreciate their previous contributions, and I particularly want to 
acknowledge the support provided by their spouses and family members, 
several of whom are in attendance today, and thank them as well.
    If confirmed for your new positions, you will be responsible for 
the achievement of vital national security objectives. I'd like to 
underscore some of these objectives.
                                  iraq
    We must continue our success in Iraq. Supporting our military 
leaders as they implement the U.S.-Iraq Status of Forces Agreement 
needs to be among our highest priorities--even as we turn our attention 
increasingly to the war in Afghanistan. Ensuring the final defeat of al 
Qaeda in Iraq, continuing to improve security for the Iraqi people in 
cooperation with the Iraqi Army and police, and supporting conditions 
that will guarantee the success of Iraq's fragile democracy are 
essential.
    As we draw down forces in Iraq, we must not create opportunities 
for al Qaeda and sectarian extremists to re-emerge. I was pleased to 
read reports yesterday of Senator Biden's pledge that the incoming 
administration will not withdraw troops in a manner that will threaten 
Iraqi security.
                              afghanistan
    Afghanistan poses a central challenge to the United States and our 
allies. I believe we need a comprehensive civil-military plan, backed 
by the troops and resources necessary to implement it, in order to 
prevail in Afghanistan. Our strategy and tactics must be reviewed and 
modified to respond to the growing threat posed by the Taliban. A 
holding action in that troubled nation has not succeeded and will not 
succeed. I believe our allies in NATO can be persuaded to increase 
their contributions, and I intend to do all I can to achieve this goal. 
I look forward to hearing the witnesses' plans in this regard.
                             guantanamo bay
    The President-elect has clearly stated his intent to direct the 
closure of the detention camp at Guantanamo Bay. I agree wholeheartedly 
with this decision, but recognize that carrying it out will raise 
difficult questions about the transfer of the detainees and the 
procedures that will be used to determine their status and culpability. 
I look forward to working with the administration as they address these 
issues, and I would invite the nominees to comment on the way forward.
                           acquisition reform
    I continue to believe that acquisition reform at DOD is critical. 
Especially in these turbulent economic times, America cannot afford the 
costly weapons procurement failures and mismanagement of the past. We 
must have personnel, procedures, and systems in place which ensure 
decisionmaking that is responsive to our national security imperatives 
in a fiscally responsible manner. While we have made some progress in 
reforming the system over the last few years, we need to do much more. 
To this end, I call for a comprehensive audit of the DOD budget aimed 
at identifying the unnecessary, wasteful programs and procurements that 
should be terminated or suspended immediately; changes to the Nunn-
McCurdy law designed to reinforce the process by which cost estimates 
are independently assessed and to strengthen congressional oversight 
over chronically poor performing weapons programs; and the 
establishment and adequate resourcing of an Office of Independent 
Assessment to provide the Department and Congress independent 
assessments of cost, technological maturity, and performance.
                                earmarks
    Fully consistent with acquisition reform, we must continue to 
demand complete elimination of earmarks, and transparency into 
congressionally-directed changes. I am pleased at the comments of the 
President-elect in this regard.
                        readiness and personnel
    Continued support for the men and women of the Armed Forces and 
their families remains my highest priority. Every effort must be made 
to recognize and respond to the sacrifices of the families of our 
deployed servicemembers, and we must continue to find ways to help our 
heroic wounded warriors recover and move on to new challenges in 
service and in life. The Army and Marine Corps need more Active-Duty 
personnel, and, despite budgetary pressures, I expect the new 
administration to support this critical requirement.
    I am also concerned about the ability of our combat units to be 
trained and ready for the next fight. Army leadership testified last 
year about the deteriorating condition of our current unit readiness, 
which has affected the strategic depth of our combat units to be able 
to respond to threats against U.S. national security interests in areas 
other than Iraq and Afghanistan. The Navy and Air Force also have 
expressed concerns about reduced current unit readiness rates due to 
aging and worn out equipment and systems. Congress has provided over 
$25 billion in the past 3 years towards the reset of equipment and 
material for Active and Guard forces returning from deployments. Even 
with these resources, we still are faced with a serious strategic risk.
    Again, I appreciate our nominees' service, and, Senator Levin, I 
thank you for your many courtesies over the years, and I look forward 
to working together with you and all the members of the committee as we 
begin the 111th Congress.

    Senator Inhofe. Also, I've had a chance to get to know--not 
as well as I hope to later on--our new members, Kay Hagan and 
Mark Udall.
    Mark, you have baggage. One of the things we always do when 
we have new members coming on the committee, you read about 
them, and I'm very pleased that you made the decision to get on 
this committee. All three of you are going to be great 
additions. I look forward to working with you.
    I see my friend, Ike Skelton, here. I worked under his 
leadership for many years. We were on the House Armed Services 
Committee and I'm glad you're here to lend your support as I am 
doing at this time.
    Let me just make one comment, and that is that most of 
you--all of you, I guess--had experience back when things were 
really different, back in the 1990s. Sometimes I look back, 
somewhat wistfully, at the days of the Cold War. Things were 
predictable then. We had an enemy out there, we knew who the 
enemy was, we knew how the enemy thought.
    Now everything is asymmetrical, we have threats that are 
totally different than the threats that existed in the 1990s. I 
know that you all have been keeping up with that.
    I had a very good conversation between flights, a few days 
ago, with President-elect Obama. He called--I was actually in 
Memphis, between flights, and we had a chance to talk. I was 
complimentary of him on what he's done with the defense and 
other appointments and nominations, and the fact that Secretary 
Gates is going to be staying on. General Jim Jones, I just 
think that was a great idea to do that. Of course, Eric 
Shinseki--we've all served with him, and think so much of him.
    You folks will be working with these people, and I'm 
looking forward to supporting you. I'm looking forward to 
working with you. As we get into the problems that are there, I 
think we'll have debate from time to time, disagreement, right 
up here around this table. But we all respect each other, we 
all want one ultimate goal, and that is to defend this country 
and everybody in it.
    With that, I'll turn it back to you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Inhofe. We're 
delighted today to have with us colleagues to introduce our 
nominees. The first colleague who I'll call on is a member of 
the committee, and an incredibly valuable member of the 
committee and the Senate.
    Senator Reed, do you want to make your introduction first? 
Then I think we'll call upon Representative Skelton, and then 
Senator Menendez in terms of your schedule, if that's all 
right. We'll call upon you third in terms of the order of the 
witnesses will be appearing. But also to accommodate 
Representative Skelton who I know has to get back to the House.
    Senator Reed.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM THE STATE OF 
                          RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman. It's an 
honor to be here today. I'm particularly pleased with the 
appointments that the President-elect has made, beginning with 
Secretary Gates. The gentlemen and the lady that are here 
today, are representative of the superb quality, patriotism, 
and commitment that has been evidenced by all of the 
appointments, to date, at DOD.
    I want to join Chairman Skelton in recognizing Michele 
Flournoy. We've had an opportunity over many years to work 
together, she is superbly prepared for this job, and someone 
that I admire immensely.
    But my great task, and indeed a great honor, is to 
introduce Bill Lynn. As you've indicated, Mr. Chairman, Bill 
has a superb career, embracing service here, on Senator 
Kennedy's staff, as a military legislative assistant. Service 
in the Pentagon, in the Program Analysis and Evaluation Office, 
as the Director, and as Comptroller. I don't think anyone knows 
more about the intricacies of the budget and the institutional 
culture of the Pentagon than Bill Lynn. He certainly knows a 
bit about Congress.
    He also is someone who, over the last several years, has 
been a significant participant with Raytheon Company, and their 
major operations with respect to supporting DOD. Bill combines 
the three pillars, I think, of someone who has to be successful 
in this job as Deputy Secretary--knowledge of Congress, 
intricate knowledge of the Pentagon, and knowledge of the 
contractors who support the operations at the Pentagon.
    He is, besides being experienced, a man of great character 
and integrity. Bill graduated from Dartmouth College, with a 
law degree from Cornell Law School, and a Masters in Public 
Affairs from the Woodrow Wilson School. He is a superb choice.
    Today, he is joined by his wife, Mary Murphy. Their young 
daughter, Catherine, is at home--supposedly watching on TV. I--
from practical experience--suggest it's probably not C-SPAN, 
it's Sprout. But, nevertheless, they have shouldered the 
challenge, not only of service to the Nation, but parenthood, 
and I commend them for both.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Reed.
    We will make part of the record a statement of Senator 
Kennedy, welcoming Bill Lynn here. We will put that statement 
in the record in the same place, right next to the introduction 
by Senator Reed.
    [The prepared statement of Senator Kennedy follows:]
            Prepared Statement by Senator Edward M. Kennedy
    It's an honor to join in welcoming Bill back to the Senate Armed 
Services Committee, and I look forward to his confirmation. The 
Department of Defense and the Nation will benefit from Bill's 
extraordinary level of experience, expertise, and integrity on matters 
of vital importance to our Armed Forces and our national security at 
this critical time in our history. The brave men and women of our 
Nation's armed services and their families will have a devoted servant 
and outstanding advocate in Bill.
    I've known Bill for many years. He did an outstanding job as my 
legislative assistant on committee issues from 1987 to 1993. Since 
then, he has excelled in a number of challenging and demanding 
positions in both the public and private sectors and his knowledge, 
background and command of Defense Department policy, procedure, and 
budget are broad and deep.
    From 1993 to 1997, Bill served as Director of Programs Analysis and 
Evaluation in the Office of the Secretary of Defense, steering and 
overseeing all aspects of the Department's strategic planning process 
and going on to become Comptroller of the Department in charge of the 
budget and fiscal planning. He then furthered his experience with 
comprehensive departmental budget and fiscal planning and assumed the 
position of Under Secretary of Defense (Comptroller).
    In the private sector, Bill's leadership has contributed to the 
continued strength of America's vital defense and homeland security 
capabilities during an unprecedented period of challenge and crisis.
    This compelling array of defense skills across government, 
industry, and the national security community and commitment, will 
greatly benefit the Obama administration, and I strongly support his 
nomination.

    Chairman Levin. Ike Skelton, our dear friend, chairman of 
the House Armed Services Committee, it's one of the great 
pleasures of being chairman of this committee, is the 
opportunity to work with my counterpart over at the House.
    Ike, welcome.

  STATEMENT OF HON. IKE SKELTON, U.S. REPRESENTATIVE FROM THE 
                       STATE OF MISSOURI

    Representative Skelton. Thank you very much, Mr. Chairman, 
Senator Inhofe. It's good to be with you today, and it's a 
thrill to be here, especially to see my friend and colleague 
from Missouri, Claire McCaskill, who's distinguished herself so 
well back home, as well as here.
    It's also interesting to note, Mr. Chairman, that there are 
four members from the House on the committee, if I'm correct, 
three former members of our committee--the House Armed Services 
Committee--and I know that speaks very well for their continued 
service for the national security.
    Mr. Chairman, I couldn't be more delighted today than I am 
in support of the nomination of Michele Flournoy to be the 
Under Secretary of Defense for Policy. She and I have spent 
many hours together. I could talk long about her professional 
qualifications and excellent personal qualities. But, in 
deference to your preference for brevity, I will not do so.
    I've gotten in the habit, Mr. Chairman, of asking each of 
the Service Chiefs from time to time, whether their war 
colleges are producing graduates who are capable of engaging in 
high-level discussion of strategy with someone at the level of 
George C. Marshall. In truth, the question is a little bit 
unfair, because very few of its civilians are capable of such a 
discussion ourselves. We're entrusted as much--or really more 
so--with decisions about overall strategy.
    However, the Senate has the opportunity to confirm just 
such an individual as Michele Flournoy. She is nominated for 
exactly the job within DOD for which her remarkable skills are 
uniquely suited.
    Michele developed a sterling reputation during her highly 
decorated service in the Department during the 1990s, she 
served as both Deputy Assistant Secretary of Defense for 
Strategy, as well as the Principal Deputy Assistant Secretary 
of Defense for Strategy and Threat Reduction.
    Among many other accomplishments, Michele was a leading 
figure in the development and performance of the first two QDRs 
in 1997 and 2001. Her hallmark in these efforts was an 
insistence on rigorous analysis and reliance on hard data and 
modeling at a time when the use of these tools on issues of 
planning and strategy were poorly understood.
    She continued her public service in recent years by serving 
on the Defense Policy Board and the Defense Science Board Task 
Force for Transformation. She also served as Professor at the 
National Defense University, where she led its QDR Working 
Group in 2001.
    Not least among her contributions during this time was her 
work in educating Members of Congress--including me--and I 
know, also, Senator Reed, in the deep nuances of military 
readiness, and the best way to restore it.
    In 2007, Michele cofounded the Center for a New American 
Security, to provide analysis and advocacy for a strong, 
pragmatic, national security strategy for our country. This 
group has quickly become known as that rare animal--a think-
tank focused on developing pragmatic solutions to difficult 
national security problems.
    Her leadership on their Project Solarium which took the 
name from President Eisenhower's attempt to put together a 
strategy--is examining new approaches to our national security 
strategy has been extremely important. I know that I need not 
remind anyone on this committee about the pressing need we face 
for a pressing and balanced review of our global strategy, as 
well as those in Afghanistan and in Iraq.
    The President-elect has chosen exactly the right person to 
assist him, as well as Secretary Gates, in this effort in 
ensuring that this Nation is focused on the challenges around 
the corner that we don't yet have a clear view of.
    Finally, I would say that Michele understands the 
significant personnel and readiness issues facing our military. 
She understands that the senior leaders at the Pentagon have to 
be more than just policy wonks, but also responsible stewards, 
serving the needs of the military families as well as the 
taxpayers of our country.
    She's married to Scott Gould, a 26-year veteran of the 
United States Navy, thereby a military spouse herself, of many 
years' standing. Her ability to put policy decisions in this 
context will serve her, the Secretary, and our Nation, well.
    Michele's qualifications are exemplary. Her judgment, her 
knowledge, her character all are first-rate. Confirming her 
will bring credit to this committee, as well as to DOD, and Mr. 
Chairman, to our Nation.
    I urge you to confirm as expeditiously as possible, this 
lady for this very high-level position. Thank you so much.
    Chairman Levin. Thank you, Representative Skelton. We very 
much appreciate your coming by this morning, as I know Ms. 
Flournoy does.
    Now, another good friend of ours, a good friend of the men 
and women in the military, Senator Menendez.

STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR FROM THE STATE 
                         OF NEW JERSEY

    Senator Menendez. Thank you. Thank you, Mr. Chairman--to 
you and all of the distinguished members of the committee. I'm 
honored to appear before you today to introduce Jeh Johnson on 
his nomination hearing to serve as the next General Counsel of 
DOD. I am confident that the committee--and the full Senate--
will conclude that he is exceptionally well-qualified to serve 
in this important position with great distinction.
    Jeh Johnson's distinguished legal career has included both 
public service as well as private practice; his private 
practice with a prominent New York-based law firm of Paul, 
Weiss, Rifkind, Wharton & Garrison, he is a graduate of 
Morehouse College and Columbia University Law School.
    In 1989 and 1991, he was a Federal prosecutor in the 
Southern District of New York, where he was responsible for 
investigating and prosecuting cases involving public 
corruption. He then resumed a successful private practice in 
the litigation department of Paul, Weiss, which included being 
elected a fellow in the prestigious American College of Trial 
Lawyers.
    But he is not a stranger to the Defense Department. In 
1998, he left private practice at Paul, Weiss to take the 
position of General Counsel at the Department of the Air Force. 
He served as Air Force General Counsel for over 2 years, and 
during that time, gained a solid understanding of the unique 
challenges and demands of being one of the top attorneys within 
our largest government agency. He is, without a doubt, ready 
now to serve as the senior legal authority at the Defense 
Department.
    The lawyers at DOD will have to deal with some very complex 
and difficult issues in the months ahead. No doubt, there are 
other equally difficult issues than those that we see now, and 
those will lie over the horizon.
    In remarks that he made to a conference of Air Force Judge 
Advocates General in 2007, Jeh Johnson said that, ``In the 
absence of a Constitutional amendment, an act of Congress, or 
some new interpretation of the constitution of the laws by the 
courts, the rule of law does not change. It remains consistent 
throughout changing times.'' As legal advisor in DOD, your 
challenge is to provide consistent advice and guidance to 
policymakers and commanders about what the rule of law means.
    I am confident that Jeh Johnson will provide just such 
advice and guidance to policymakers and commanders, as General 
Counsel to DOD, for them to be able to--not only pursue the 
rule of law--but meet their challenge in defending and 
protecting our Nation. He will do so with intellect and 
integrity that have been the hallmarks of his life, and I'm 
pleased to present such a distinguished individual from the 
State of New Jersey to this committee.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Menendez.
    Let me now call on our witnesses for their opening 
statements, and when I call on you, perhaps you would introduce 
those who accompany you here today.
    First, Bill Lynn. Let me call on you for any opening 
statement you might wish to give us, and introduce your family.

    STATEMENT OF WILLIAM J. LYNN III, NOMINEE TO BE DEPUTY 
                      SECRETARY OF DEFENSE

    Mr. Lynn. Thank you very much, Mr. Chairman.
    Chairman Levin, Senator Inhofe, and members of the 
committee, it's a privilege to appear before this committee. 
I'm particularly honored to return to the committee where I--as 
the chairman noted--spent so many years.
    I'm also honored that President-elect Obama has nominated 
me for the position of Deputy Secretary of Defense. I 
appreciate the confidence that he and Secretary Gates have 
placed in me, and if confirmed, I look forward to the 
opportunity to serve again with the dedicated men and women of 
our Armed Forces, particularly those serving in combat 
operations, including more than 140,000 in Iraq, and more than 
30,000 in Afghanistan.
    Mr. Chairman, I'm particularly grateful to you, and to 
Senator McCain, for your exceptional efforts to act on our 
nominations so expeditiously. This is our first war-time 
transition in many years, and reducing any gaps in civilian 
leadership at the Pentagon is critical.
    I also want to thank Senator Reed for the kind 
introduction. The Senator's leadership on issues of national 
security is inspiring. I look forward to working with Senator 
Reed and all of the members of the committee on the great 
challenges facing us.
    Let me express my gratitude to Senator Kennedy who--as the 
chairman noted--is unable to attend this hearing. Senator 
Kennedy has been a superb boss, a great mentor, and a loyal 
friend. His leadership and courage are unsurpassed, and I--with 
the chairman--look forward to seeing him, again, back here very 
soon.
    Finally, I want to thank my wife, Mary, who's here in the 
audience, and my daughter, Catherine, who Senator Reed noted is 
not here, to avoid disruption for the committee. They're 
embarking on this journey with me. They don't know where it 
will take us, precisely, but they do know--as the chairman 
noted--there will be numerous sacrifices, and I greatly 
appreciate their support.
    This committee is noted for its bipartisan commitment to 
national security, and for its attention to the needs of our 
men and women in uniform, particularly at a time we're engaged 
in two wars. I appreciate the decades of experience on defense 
matters that are resident on this committee, and I commit to 
continuing in supporting Secretary Gates' effort to engage 
Congress, and this committee in particular, in constructive and 
candid discussions.
    I approach this confirmation hearing, and if confirmed, 
this position, with humility. Serving as the chief management 
officer of an organization as large and diverse as DOD is a 
task that no one is truly qualified to perform. If the Senate 
confirms me in this position, I have two co-equal 
responsibilities. On one hand, I'll work alongside the 
Secretary to advance our national security strategy. On the 
other hand, as the chief management officer, I will have 
primary responsibility for ensuring the smooth functioning of a 
vast, and sometimes unwieldy, bureaucracy.
    There are serious challenges facing the Department today, 
and the next Deputy Secretary will have the responsibility to 
assist the Secretary in a myriad of critical tasks.
    If confirmed for this important position, I would focus on 
three initial challenges. First, during a transition in a time 
of war, it is essential that the Department execute a smooth 
transition of leadership as quickly as possible. To that end, I 
would work with the Secretary and Congress to assemble a top-
quality cadre of civilian leaders. As part of that effort, I 
would also place a high priority on strengthening the 
capabilities of the career staff who are essential to address 
the many near-term challenges, as well as the longer-term tasks 
of the Department.
    A second challenge will be to conduct at least three sets 
of major program and budget reviews in the first few months of 
the new administration. These include a review of the 2009 
supplemental appropriation, revisions to the draft fiscal year 
2010 budget, and its timely submission to Congress, and 
finally, the expeditious completion of the QDR.
    In the QDR, a key task will be to lay the foundation for an 
effective force for the 21st century that establishes the right 
balance among capabilities for addressing irregular and 
counterinsurgent warfare, potential longer-term threats from a 
high-end, or a near-term competitor, and the proliferation of 
threats from rogue states, or terrorist organizations.
    A third challenge will be to pursue an active reform agenda 
for the management of the Department as a whole. If confirmed, 
I would devote considerable time and energy to improving the 
Department's processes for strategic planning, program and 
budget development, and acquisition oversight.
    At a time when we face a wide range of national security 
challenges and unprecedented budget pressures, acquisition 
reform is not an option, it is an imperative. It is time to 
improve all aspects of the Department's acquisition and budget 
processes, so that every dollar we spend at the Pentagon is 
used wisely and effectively to enhance our national security.
    Mr. Chairman, members of the committee, thank you again for 
the honor of appearing before your committee, and for your 
efforts to schedule such a prompt hearing. I look forward to 
answering your questions, and if you see fit to confirm me for 
this position, I stand ready to serve to the best of my 
ability.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much. Our next nominee is 
Robert Hale, nominated to be Under Secretary of Defense and 
Chief Financial Officer.
    Mr. Hale.

 STATEMENT OF ROBERT F. HALE, NOMINEE TO BE UNDER SECRETARY OF 
       DEFENSE (COMPTROLLER) AND CHIEF FINANCIAL OFFICER

    Mr. Hale. Thank you Chairman Levin, Senator Inhofe, and all 
of the members of the committee. I want to thank the committee 
for having this hearing, and again, express my appreciation--
joining Mr. Lynn--in thanking you for the expedited nature of 
it.
    I'm very grateful to the confidence President-elect Obama 
has placed in me by indicating his intent to nominate me for 
this position, and then also the support of Secretary Gates. If 
confirmed, I'll be honored to serve as the Under Secretary of 
Defense (Comptroller), and the Chief Financial Officer of the 
Department of Defense.
    I especially want to thank my family, as you said, Mr. 
Chairman. This is a journey that will take a considerable 
amount of their time, as well, or take me away from them. 
Particularly Susan Hale, my wife of 35 years, who's right back 
here.
    I thank Sue in advance for putting up with all of the long 
hours that I know are coming. I have two grown sons, Scott and 
Michael, who live and work in California, and unfortunately 
were not able to be here at the hearing, but I certainly want 
to acknowledge them, they are very much important parts of my 
life.
    Mr. Chairman, the responsibilities of the DOD Comptroller 
are many and varied. I served for 7 years as the Assistant 
Secretary of the Air Force for Financial Management and 
Comptroller, 12 years before that--as the chairman mentioned--
as head of the National Security Division at CBO. I am well-
aware of the challenges that the DOD Comptroller faces.
    I also had the honor early in my career of spending a 
couple of years as an Active-Duty officer in the United States 
Navy, several more years in the drilling Reserve, so I have a 
sense, I think, of the culture of the brave men and women who 
serve in uniform.
    With that as background, and if confirmed, my top priority 
will be to help DOD obtain the necessary resources, so that the 
men and women of the Department can meet our national security 
objectives.
    As Mr. Lynn indicated, an early high priority will be an 
expedited review of the second portion of the fiscal year 2009 
supplemental, and an expedited review of the fiscal year 2010 
budget request.
    I understand the importance of working with this committee, 
as with the appropriating committees in all of Congress, as we 
seek to accomplish these critical goals. At a time when we have 
tens of thousands of Americans serving overseas and in harm's 
way, we all need to work together to be sure they have the 
resources that they need.
    The committee and Congress have also charged the DOD 
comptroller with the authority and responsibility for 
overseeing defense financial management, financial operations 
in the Department. We need to make continued improvements in 
how we pay our people, how we pay our vendors. We need to 
improve financial systems, and approve the way we account for 
funds in the Department. These latter two items are fundamental 
to the goal of continued progress toward auditable financial 
statements. This, overall, will be another high priority for 
me.
    The Department also needs better financial information in 
order to spend the dollars that are appropriated to it 
efficiently and effectively, and I think wise spending of 
defense dollars is always important, but it's especially 
important right now, as the Nation weathers this really serious 
economic crisis.
    I'm well aware of the daunting and longstanding challenges 
associated with improving financial operations and financial 
management in the Department, but if confirmed, I will 
certainly pledge my best efforts with this committee and many 
others, to accomplish these goals.
    Another priority, Mr. Chairman, the Department must have a 
capable and well-trained workforce in order to accomplish 
defense financial management. We have the best systems in the 
world, we can have the best accounting practices, if we don't 
have the people out there that are well-trained, and in 
adequate numbers, it's not going to work.
    I'm familiar with this workforce through my current job as 
the Executive Director of the American Society of Military 
Comptrollers, a nonprofit professional association. If 
confirmed, I plan to spend some time supporting DOD, the 
military departments, and the agencies as they seek to recruit, 
train, and retain the right defense financial management 
workforce so that we can do this job well into the 21st 
century.
    In closing, Mr. Chairman, I'd again like to thank 
President-elect Obama and Secretary Gates for selecting me as 
the nominee for this position. If the Senate confirms me as the 
Under Secretary of Defense (Comptroller), I will make every 
effort to live up to the confidence that you will have placed 
in me.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Mr. Hale.
    We notice now another of our new Senators, Senator Udall, 
has joined us. We're delighted to have you as a Member of the 
Senate, and a member of this committee, welcome.
    Senator Udall. Thank you.
    Chairman Levin. Our next nominee is Michele Flournoy, to be 
Under Secretary of Defense for Policy.
    Ms. Flournoy, welcome.

STATEMENT OF MICHELE FLOURNOY, NOMINEE TO BE UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Thank you, Mr. Chairman and Senator Inhofe, 
members of the committee, it is truly an honor to appear before 
you today as President-elect Obama's nominee for the Under 
Secretary of Defense for Policy. Serving our Nation in this 
capacity would be a great privilege, and I'm grateful both to 
President-elect Obama, and to Secretary Gates, for choosing me 
for this position.
    I'm also very grateful to Representative Skelton for that 
kind introduction, and for being such a wonderful colleague and 
mentor to me over the years. I was very honored by his presence 
here today.
    I also, particularly, want to thank my family for being 
here, my husband and partner in all things, Scott Gould, and my 
children, Alec, Victoria, and Aidan--they are my foundation and 
my joy, and I could not even contemplate public service without 
their steadfast love and support.
    If confirmed, I look forward to working closely with this 
committee in shaping our Nation's defense policy. Over the 
years, the Senate Armed Services Committee has shown a strong, 
consistent--and as you said, Mr. Chairman--a bipartisan 
commitment to advancing our Nation's security, and to caring 
for the men and women in uniform. I appreciate Congress' 
critical role under our Constitution in providing for the 
common defense, and I also appreciate this committee's 
willingness to expedite the confirmation process, when more 
than 200,000 soldiers, sailors, airmen, and marines are 
deployed in harm's way, supporting operations in Iraq, 
Afghanistan, and elsewhere.
    At this time of war we owe them--and we owe the American 
people--the smoothest transition possible between 
administrations.
    At this moment in our history, the United States--as you 
all know--faces a daunting number of national security 
challenges, but also some very hopeful opportunities. We can, 
and we must, restore our Nation's global standing, and protect 
America, our interests, and our allies from attack.
    We can, and must, craft whole of government, integrated 
strategies to deal more effectively to defeat threats like 
violent extremism, and the proliferation of weapons of mass 
destruction (WMD).
    We can, and must, rebalance our efforts in Iraq and 
Afghanistan, and ultimately achieve successful outcomes in 
both.
    We can, and must, work to reduce the strains on our forces, 
the brave men and women in uniform, and their families who have 
rendered such extraordinary service--and tireless service--to 
this Nation.
    We can, and must, restore the economic power that 
underwrites our military strength, and prepare for a very 
complex and uncertain future. This is a critical time for our 
country, the stakes are high, the resources are tight, and the 
need to make hard choices is pressing.
    If I am confirmed by this committee, and by the Senate, as 
Under Secretary of Defense for Policy, I promise you that I 
will work diligently to help the President-elect and Secretary 
Gates responsibly conclude the war in Iraq, and continue the 
fight against al Qaeda and its associated movement. I will work 
closely with inter-agency partners, and international partners, 
to support the stabilization of Afghanistan.
    Working with our colleagues at the State Department, I will 
engage with our allies and our partners, to advance common 
security interests, and help build their capacity to move 
forward. I will do my best to help the U.S. military adapt to 
the challenges of the 21st century. I will also do my best to 
ensure that our brave men and women in uniform have what they 
need to be successful in the field, and that they have the 
peace of mind, knowing that their families are receiving the 
support that they deserve.
    Over the course of my career, I have been truly blessed, 
with remarkable opportunities to contribute to U.S. national 
security and defense policy, in government, and in the think-
tank world.
    If confirmed, I assure you that I will work very hard to 
ensure that DOD implements the President-elect's national 
security strategy in a way that is both principled and 
pragmatic. I pledge to listen to the best available civilian 
and military advice, and to offer my own best advice and 
counsel to the Secretary of Defense and the President-elect.
    In closing, I just, again, want to thank President-elect 
Obama for nominating me for this position, Secretary Gates for 
supporting my nomination, and my family and my friends for 
their love and support. I am both honored and humbled to be 
before you today, and if the Senate chooses to confirm me in 
this position, I hope to fully justify your trust, and I look 
forward to working closely with all of you and your staff, 
going forward.
    Thank you.
    Chairman Levin. Thank you so much, Ms. Flournoy.
    Now we have the nominee to be General Counsel of the 
Department of Defense, Jeh Charles Johnson.
    Mr. Johnson.

    STATEMENT OF JEH CHARLES JOHNSON, NOMINEE TO BE GENERAL 
                 COUNSEL, DEPARTMENT OF DEFENSE

    Mr. Johnson. Thank you, Mr. Chairman, Senator Inhofe.
    I want to thank the members of the committee and the staff 
for expediting the review of our nominations. I want to 
obviously acknowledge and thank the President-elect for 
designating me to be the nominee for General Counsel of DOD, 
and for the support of Secretary Gates. I've gotten to know him 
a little bit over the last several weeks, and I am as impressed 
as everyone else seems to be with Secretary Gates and his 
leadership of the Department.
    Obviously, I want to thank my family. My wife, Susan, is 
here behind me--my wife of 15 years--my sister and brother-in-
law from Alabama are here, my two children could not be here 
today. My son's obligations to his World Civ class overrode his 
desire to appear before this committee. [Laughter.]
    I also want to note some friends of mine from the Air Force 
from when I was General Counsel of the Air Force. Retired Major 
General Bill Morman, former Judge Advocate General of the Air 
Force, is here today. I also want to note the presence of Judge 
Stucky from the Court of Appeals for the Armed Forces, former 
counsel to this committee.
    I appeared here for confirmation 10 years ago, in front of 
Chairman Strom Thurmond. I first worked for the United States 
Senate in 1978 as an intern for Pat Moynihan, and so my respect 
for the United States Senate is enormous. If confirmed, I look 
forward to working with the Senate, with this committee, and I 
look forward to supporting the men and women in uniform who 
sacrifice so much.
    Thank you.
    Chairman Levin. Thank you so much, Mr. Johnson.
    Now there are some standard questions which we ask of all 
of our nominees. I'll ask you all to answer together on these 
questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest? [All four witnesses answered 
in the affirmative.]
    Have you assumed any duties, or undertaken any actions 
which would appear to presume the outcome of the confirmation 
process? [All four witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings? [All four witnesses answered in the 
affirmative.]
    Will you cooperate in providing witnesses, and brief 
written response to congressional requests? [All four witnesses 
answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings? [All four witnesses answered in the 
affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee? [All four witnesses answered in 
the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms and communication, in a timely manner, when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good faith delay or 
denial in providing such documents? [All four witnesses 
answered in the affirmative.]
    Thank you. I think we'll try an 8-minute first round. We 
have four witnesses, so there will likely be a second round, 
but in order to give everybody an opportunity to ask questions, 
we'll start with an 8-minute first round.
    Mr. Lynn, you've made reference to the cost growth and 
other problems on DOD's major acquisition programs, and those 
problems have reached crisis proportions. Last spring, as I 
mentioned, GAO reported that the cost overruns on the 
Department's 95 largest system acquisition programs now total 
roughly $300 billion over original program estimates, even 
though we have cut unit quantities and reduced performance 
expectations on many programs, in an effort to hold down costs.
    In response to a pre-hearing question, you note that some 
of this cost growth is a result of ``a reluctance'' to balance 
performance demands, particularly in the early stages of 
programs, when decisions have a major impact on subsequent cost 
and schedule outcomes. The Department recently instituted an 
organization, which is called the ``tri-chair'' committee, 
bringing together senior officials that are responsible for 
acquisition, budget, and requirements, in an effort to better 
balance cost, schedule, and performance early in the 
acquisition cycle.
    My question to you is, if confirmed, do you anticipate 
continuing that process, or a similar process, to ensure the 
tradeoffs between cost, schedule, and performance of a major 
weapons system are fully considered, before it's too late?
    Mr. Lynn. Mr. Chairman, I certainly agree with the thrust 
of your comments, that the key to getting a handle on programs 
costs is to ensure that we are able to establish the 
requirements upfront, and adhere to those requirements, unless 
there is some overriding need, but not to regularly change 
those. It's critical to do that upfront.
    I'm aware of the tri-chair process, I haven't had time to 
study it, but I think the direction that goes--the setting of 
requirements--is done at the highest level, and that any 
changes later in the program be also approved at the highest 
levels, is the right principle.
    Chairman Levin. A year ago, Mr. Lynn, we established an 
Acquisition Workforce Development Fund, to ensure that the 
Department will have the workforce that it needs to ensure that 
the billions we spend on acquisition programs every year get 
the planning, management, and oversight they need.
    Over the last 8 years, the Department's spending on 
acquisition programs has more than doubled, but the acquisition 
workforce has remained essentially unchanged in numbers and in 
skills. If confirmed, will you ensure that the Acquisition 
Workforce Development Fund is fully implemented, and used for 
the intended purpose of rebuilding the acquisition workforce?
    Mr. Lynn. I agree with the Chairman that rebuilding the 
acquisition workforce is a critical tenant in improving our 
overall acquisition process. As you've noted, Mr. Chairman, 
we've had an increase in the program costs and not a 
corresponding increase in the acquisition workforce.
    I'd add to that, there's also a bubble of retirement. Many 
of the current workforce is eligible for retirement, they're 
going to need to be replaced with expert personnel, and I think 
the mechanism that the committee has put in place for the 
Acquisition Workforce Development Fund is going to be an 
important part of improving and developing the future cadres of 
our acquisition workforce.
    Chairman Levin. Mr. Hale, will you agree to keep that 
mechanism in place, or a similar mechanism?
    Mr. Hale. Mr. Chairman, we will definitely work with the 
committee to make sure that we support from the Comptroller's 
shop, the Acquisition Fund, and more generally, the improvement 
in acquisition planning.
    Chairman Levin. Thank you.
    Mr. Lynn, Ms. Flournoy, and Mr. Johnson, this question is 
for all three of you. I've spoken to each of you about my 
concerns regarding the use of contractors in Iraq and 
Afghanistan, to perform functions that have historically been 
performed by government personnel.
    I think you're aware of recently enacted legislation with 
regard to private security contractors, and contract 
interrogators. Now, I have a few short questions for each of 
you. Would you agree that the Department needs to undertake a 
comprehensive review of whether, and to what extent, it is 
appropriate for contractors to perform functions like 
performing private security in high-threat environments, and 
interrogation of detainees, and that the congressional views 
expressed in two sections of the National Defense Authorization 
Act for Fiscal Year 2009 should be fully considered in the 
course of that review?
    First, would you agree with the need to undertake that 
review, Mr. Lynn?
    Mr. Lynn. I do agree, Mr. Chairman, that we do need a 
baseline to understand what the appropriate roles are for the 
military, for civilian personnel, and for contractors, and we 
ought to base our judgments on the size of each of those forces 
on those judgments.
    Chairman Levin. Will you undertake that review?
    Mr. Lynn. I will certainly work on that review. My 
understanding is Secretary Gates has asked Admiral Mullin to 
begin, at least, a piece of that, and we'll be working--
together with Admiral Mullin, under the direction of Secretary 
Gates--on that matter.
    Chairman Levin. Okay.
    Ms. Flournoy, do you agree with the need for that review?
    Ms. Flournoy. I do, sir. Yes.
    Chairman Levin. Okay, thank you.
    Mr. Johnson.
    Mr. Johnson. Yes, Senator, I do. I know from our 
conversations with Secretary Gates that he is concerned about 
increased accountability of private contractors in the field.
    Chairman Levin. Now, for each of you, would you agree that 
long-term policy decisions about the roles that may or may not 
be performed by contractors should guide our future force 
structure, rather than being driven by limitations on our 
existing forces?
    Mr. Lynn?
    Mr. Lynn. That was the thrust of my earlier comment, Mr. 
Chairman.
    Chairman Levin. Ms. Flournoy.
    Ms. Flournoy. Yes, sir, I agree with that.
    Chairman Levin. Mr. Johnson.
    Mr. Johnson. Yes, sir.
    Chairman Levin. Would each of you agree that while policy 
decisions on these issues should be informed by the views of 
our uniformed military, that they must ultimately be made by 
Congress, the President, and the civilian leadership of DOD?
    Mr. Lynn.
    Mr. Lynn. I agree with that.
    Chairman Levin. Ms. Flournoy.
    Ms. Flournoy. I do, as well, sir.
    Chairman Levin. Mr. Johnson.
    Mr. Johnson. Yes.
    Chairman Levin. This is for you, Ms. Flournoy.
    President-elect Obama has called for additional combat 
troops for Afghanistan. The Defense Department has plans for 
sending up to four combat brigades and support units, or 30,000 
additional U.S. soldiers to Afghanistan, potentially doubling 
the nearly 32,000 soldiers currently serving there.
    Secretary Gates has said that most of these combat brigades 
will not be available for deployment to Afghanistan until late 
spring or early summer, in part due to continuing deployments 
in Iraq. It's now been reported that the Department is saying 
that the additional troops for Afghanistan will not be fully 
deployed by the end of the summer. Do you support a proposal, 
first of all, to nearly double the U.S. troop presence in 
Afghanistan?
    Ms. Flournoy. Senator, I do believe that we need to 
substantially plus-up the size of our forces in Afghanistan to 
secure and stabilize the environment there, yes.
    Chairman Levin. How aggressive should we be in our efforts 
to get the additional U.S. combat troops to Afghanistan faster?
    Ms. Flournoy. I actually think the intent of both 
President-elect Obama and Secretary Gates is to move as quickly 
as possible. I have not yet been briefed on the details in 
terms of what would be required to do that, but I do believe 
that in principle, we should be moving as quickly as possible.
    Chairman Levin. What would you think about drawing down 
U.S. forces in Iraq faster, in order to accelerate the 
deployment of additional forces in Afghanistan?
    Ms. Flournoy. Again, Senator, I think the key principle is 
to shift the emphasis, but to do so in a very responsible 
manner. I, again, have not been briefed on the details of 
what's possible there, but I do look forward to looking into 
that, and getting back to discussing that with this committee.
    Chairman Levin. Okay, thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, as we were having opening remarks, I wrote 
down a couple of things that were said.
    Mr. Hale, having the necessary resources--I was glad to 
hear that because--and I think Ms. Flournoy, you said 
essentially the same thing--restore economic power to the 
military. I think that's a recognition that there's no cheap 
way out of this thing. I know a lot of people used to talk 
about a percentage of gross domestic product that should go 
toward military, but it won't serve any useful purpose to talk 
about that.
    I think there are some areas where we just have to 
recognize that we are faced--as I said in my opening 
statement--with, in my opinion, greater threats than we have 
been in the past, because of the asymmetrical nature of the 
enemy.
    Each of us up here on this committee has programs that we 
have watched work in the field. Rather than just to hear 
testimony from various committees here in Washington, see how 
they work on the ground. I have some that I think work very 
well, and I would like to ask Mr. Lynn and Ms. Flournoy your 
opinions of these.
    First of all, the International Military Education and 
Training (IMET) program is an education program, I'm sure 
you're familiar with that. Ironically, back in the beginning of 
that program, we were doing the IMET program as if we were 
doing a favor to them--I'm talking about other countries--who 
would be sending their officer material to be trained in the 
United States.
    The more I served--was in the field, and observed this 
program--the more I felt that this was something that really, 
we're doing for ourselves. There's no better relationship than 
one that comes from training. I've seen some of the officers go 
back to their countries--whether it's in Africa or elsewhere--
and they have an allegiance that is there.
    Second, if we don't do it, either China is going to do it, 
or somebody else is going to do it. That's one of the programs 
that I have strong feelings about.
    Next are the train-and-equip programs--the section 1206, 
1207, and 1208 programs. It's been my opinion, as we go around, 
that by doing this, we can avoid having our own troops have to 
do a lot of the things that they otherwise can be trained to do 
for us.
    The third one is the Commander's Emergency Response Program 
(CERP). I think they've changed the name of that, they always 
do that to confuse us, I think. But nonetheless, this allows 
the commanders in the field to have a greater latitude of what 
they can do. Some of the experiences that I had, early on, in 
Baghdad when it appeared that if the commander were in a 
position to take care of some of the transmitting problems, of 
electricity into some of the neighborhoods--they could do it, 
and do it cheaper--a lot cheaper--than going through the 
lengthy process of acquisition to get these things done.
    These are three of the programs that I feel personally very 
strongly about, and I'd like to know if you have any comments 
about your feelings toward IMET, train-and-equip, and CERPs.
    Mr. Lynn. Let me respond, first, Senator Inhofe, and then 
turn to Ms. Flournoy.
    I agree with you, Senator, overall, the military exchanges, 
the military training programs, should be seen in the light of 
a benefit to the United States, not as a favor to someone else. 
They develop relationships that we build on over decades, they 
provide an understanding for us of other country's militaries 
and how they operate, and equally importantly, they provide 
these other countries senior leadership when these individuals 
rise to the senior leaders, as many of them do. It provides 
them with an understanding of how we operate, and the strengths 
of this Nation.
    Just one comment on CERP. I agree it's a very important 
program, Senator. I think we have to be conscious that we have 
to balance the importance of knowledge at the front end that 
those commanders on the ground understand, I think, best the 
needs that are right in front of them.
    On the other hand, we have to have appropriate controls of 
taxpayer dollars. We have to ensure that we have a process that 
both gives the flexibility that's needed on the ground and 
assurance that the money is spent in an appropriate manner.
    Ms. Flournoy. Senator, thank you for that.
    I believe that all three of the programs--well, the two 
programs that you mentioned, IMET and the train-and-equip 
authorities--are very critical to our engagement with other 
militaries, and to building partner capacity--helping them to 
be able to do more alongside us, where we have common 
interests.
    On CERP, in particular, I think the intention of that 
program was originally for force protection and also to assist 
affected populations in counterinsurgency and stability 
operations, and so forth. I think it's a very critical tool for 
our military in the field. I would also say that all of these, 
really, are most effective when they're part of an integrated, 
sort of whole of government approach to a particular country, 
or to a particular region. So, I would hope that we would view 
and use them in the future in that context.
    Senator Inhofe. I think I would agree with your response to 
this. I would only ask that you get into this, look at some of 
the examples where, Mr. Lynn, we've actually saved a lot of 
money, on the example that I used on the transmission 
situation. It was about 10 percent of what it would have cost, 
having to go through the whole thing.
    Second, another program that I have been very interested 
in. The African continent is so important. When we had that 
divided up into three commands, it wasn't working very well. Of 
course, we had the Pacific Command, the European Command, and 
the Central Command. They're doing a great job with that 
program right now. But it is really suffering in terms of 
getting the resources necessary for it.
    It is my hope when we established the Africa Command 
(AFRICOM), that we would actually have the headquarters in 
Africa someplace, thinking, perhaps in Ethiopia or some of the 
other places where it would have worked better.
    Unfortunately, even though it's my experience talking to 
the presidents, and I'm talking about including Yoweri Museveni 
(President of Uganda), Meles Zenawi (Prime Minister of 
Ethiopia), Paul Kagame (President of Rwanda), and all of the 
rest of them, that they think it would work better, but they 
can't sell the idea.
    It's going to require, I think, more resources for AFRICOM 
than they have had before, and I'd just like to ask Mr. Lynn 
and Mr. Hale if you would be willing to get into that, and to 
see how well it's working, and perhaps they have transportation 
needs, and other needs to make that program work better.
    Mr. Lynn. Thank you, Senator. We certainly will look at 
AFRICOM. I certainly agree that it's a far better situation to 
have a unified command, have responsibility for the continent, 
rather than divide it up under three different commands. This 
is an important initiative. We need, certainly, to look at the 
resources, and I'd undertake to do that.
    Senator Inhofe. Yes, sir?
    Mr. Hale. We'll certainly support him from the 
Comptroller's standpoint.
    Senator Inhofe. All right. Finally, my time is about to 
expire, we have had discussions in this committee, and we've 
had a lot of discussions--some pretty lively--on the floor, 
about the Future Combat System (FCS). My goal has always been 
that we give our kids that are out there the best resources 
that are available and all of these resources that are better 
than our prospective opponents.
    Things like the non-line of sight cannon. It happened that 
we're still relying on the old Paladin, which is World War II 
technology. There are five countries, including South Africa, 
that have a better artillery piece than we do.
    I would hope that you would look very carefully on all of 
the elements--some 12 to 15 elements of a FCS--that you could 
bring me into your discussion, your thinking process. Because 
some of us have a greater interest than others do in those 
programs. Any thoughts on the FCS that you'd like to share? Any 
of you?
    Mr. Lynn. Senator, I think the fundamental premise that you 
stated is absolutely right, that the elements that are in the 
FCS are going to be essential to the modernization of the Army 
towards the next generation of equipment. We will want to do, I 
think, a complete review of that program, and the underlying 
technologies need to be part of the future force, and we'll 
certainly work with you and with the other Members of Congress, 
as we undertake that review.
    Senator Inhofe. I appreciate it very much. My time is 
expired.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I thank you for 
allowing me to make just a few comments. I was over at the 
Senate Homeland Security and Governmental Affairs Committee 
introducing Governor Janet Napolitano to the committee. She's 
been nominated for Secretary of Homeland Security.
    I would like to congratulate the nominees. We look forward 
to a rapid confirmation.
    Mr. Lynn and Ms. Flournoy, we've had other encounters in 
the past, and welcome Mr. Hale and Mr. Johnson. We look forward 
to your rapid confirmation and movement to the floor of the 
Senate, so you can get to work.
    I'd also like to say welcome to the new members of the 
committee, and we look forward to working with them.
    Mr. Chairman, I've forgotten how many years now this makes 
that you and I have worked together, I look forward to a very 
productive year--or two--in very challenging times. Thank you 
for all of the cooperation that you have displayed, which is a 
long tradition of this committee of bipartisanship. I look 
forward to working with you.
    Gentleman, and Ms. Flournoy, we have very great challenges 
over in DOD. Some very tough decisions are going to have to be 
made, whether it be the F-22, or whether it be the larger issue 
of our engagement--disengagement--in Iraq, or further 
engagement in Afghanistan, as well as all of the myriad of 
other challenges that we face.
    I look forward to working with you. I congratulate you and 
your families, and I appreciate your willingness to serve.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator McCain. You and 
your staff, as always, are playing an instrumental role in the 
success of this committee, and we are grateful for that, and 
all that you do.
    It's the rule of the committee, here, the tradition that we 
call on members, we go back and forth between Democrats and 
Republicans, but for the new members, we do that on the basis 
of an ``early bird'' rule.
    Senator Reed has just arrived in time to ace out Senator 
Webb. [Laughter.]
    He didn't want any questions. I already had asked Senator 
McCain. Thank you so much.
    Senator Reed.
    Senator Reed. This is the first and last time I'll ace out 
Senator Webb. Forgive me.
    Senator Webb. I doubt that. [Laughter.]
    Senator Reed. Again, I think the President-elect has chosen 
a superb team.
    Let me address a general question to both Mr. Lynn and Ms. 
Flournoy. Secretary Gates has written his fundamental concern 
is that there's not commensurate institutional support, 
including in the Pentagon for the capabilities needed to win 
today's wars, and some of their likely successors, which raises 
a host of issues that the tradeoff for preparing for 
conventional warfare against near peer competitors, versus 
irregular asymmetrical warfare.
    It also raises the issue of the integration of private 
contractors into the operations of DOD, and it raises the issue 
of the intergovernmental activities necessary--particularly to 
conduct irregular warfare, asymmetrical warfare. I'm sure my 
colleagues have touched on some of these issues.
    But I wonder if--first Mr. Lynn, and then Ms. Flournoy--you 
could give us an idea of your views at the moment on these 
complex issues?
    Mr. Lynn. Thank you, Senator.
    I think Secretary Gates has it right, I think the 
fundamental challenge in doing the next QDR which will start, 
if confirmed, as soon as we get there, is to balance between 
the near-term needs of the force in the field, and the longer-
term threats that are perhaps beyond the horizon, but still out 
there.
    That's complicated by what you mentioned, Senator, that 
there's a tension between the potential for a high-end, near-
peer threat, as well as a lower-end counterinsurgency, and the 
types of equipment, types of forces, types of training, types 
of doctrine that you would use for one, don't necessarily apply 
fully to the other. Establishing that balance, I think, is 
going to be critical in the next QDR.
    Ms. Flournoy. Senator, I would agree. I think looking at 
the initial review that the Department will undertake, I think 
the first question is going to be how do we strike the right 
balance, set the right priorities, allocate risk in current 
operations between Iraq, Afghanistan, larger operations around 
the world to combat terrorism.
    But then as we look forward, in the QDR, thinking about 
what kinds of warfare do we really need? As we want the force 
as a whole to be full-spectrum, we're going to have to make 
choices that essentially allocate risk along that spectrum.
    I really am looking forward, if confirmed, to working with 
members of this committee to try to frame and form those 
judgments going forward, so that we have a force that is robust 
across the spectrum.
    Senator Reed. Let me raise another issue, Mr. Lynn, which 
touches on almost everything we do today. That is the issue of 
energy. First of all, internal to your responsibilities to run 
the Department efficiently, you have to have a much more 
energy-efficient approach not just in simply management, but 
also in terms of the strategic challenges that poses.
    I saw, yesterday, where the Army took delivery of about 
several thousand vehicles, I believe, electric vehicles for use 
on various forts around the country. That might be an example 
of forward thinking. But, can you comment at all about the two 
issues, here. Internally--how to be more energy effective--is 
that going to be one of your priorities? Then, internationally, 
if any comments you would want to make.
    Mr. Lynn. I think the President-elect has made a new energy 
policy one of his priorities, so it will certainly be one of 
mine. The Department is, I think, a critical component of the 
President-elect's direction in this area, not just that we can 
make progress in terms of energy efficiency, the threat of 
global warming, but as, I think, you were alluding to, the 
potential cost savings for the Department of moving away from 
an oil-based dependency are huge. Whether it's fuel cells or 
synthetic fuels or other mechanisms, the potential in a time of 
real budget stress for the Department to make that kind of 
savings makes it an essential initiative on that basis, as 
well.
    Senator Reed. Thank you.
    Just let me ask Mr. Johnson, and then Mr. Hale a question.
    Mr. Johnson, over the last several years, many of the 
uniformed lawyers in DOD--and some of their civilian 
counterparts--had serious misgivings about policies that were 
being pursued. As much as a comment, but also assurance that 
you will, one, listen to these uniformed officers, that you'll 
make sure that their opinions are respected, and at least 
passed along, and that you, yourself, will be actively engaged, 
and seeking out--particularly when there are tough questions--
both sides of the argument. Is that something you can assure 
us?
    Mr. Johnson. Senator, when I was General Counsel of the Air 
Force I think that we had, between the civilian and military 
lawyers in the Department, as good a working relationship as 
ever existed in the Department. I'd like to think that the 
Judge Advocates General (JAGs) would say the same thing.
    My style of legal analysis, decisionmaking, putting 
together recommendations for the Secretary is collaboration. I 
want all points of view. I'd want to hear from the two-star, 
now three-star Judge Advocate, as well as the major who works 
the issue, who understands it better than anybody.
    If I know that the military lawyers in the Department have 
a strong view about something, have an opinion about something, 
that the Secretary is considering, I had no problem with 
bringing the JAG in with me to the Secretary's Office, so that 
I would express my General Counsel's view, and he had an 
opportunity to express his view, and the Secretary would make 
up his own mind about what to do.
    From a practical point of view, if you're wrestling with 
tough legal issues, you have every interest in wanting to get 
the input of the cross-section of lawyers across the 
Department. We have many excellent military lawyers who, 
frankly, have experiences and viewpoints that, as a civilian, I 
don't share. I want to know what they think.
    Senator Reed. Thank you, Mr. Johnson.
    Finally, Mr. Hale, one of the realities of the last several 
years has been robust supplemental appropriations. I think that 
is not something that you're going to enjoy as Comptroller. 
Have you given any thought as to how you rebalance the budget 
system, given the fact that we have to get away from these big 
supplementals?
    Mr. Hale. Senator, we need to move away from supplementals, 
I think the Secretary has said that, the Chairman of the Joint 
Chiefs has said that--I certainly agree. We're going to need a 
supplemental in fiscal year 2009 for the second portion, 
without question. I think after that, and if confirmed, I need 
to look at how quickly we can make that happen, obviously, 
working with Mr. Lynn if he's confirmed and others in the 
Department. But we do need to move away from supplementals.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Let me welcome each of you, and thank you for your 
willingness to serve. All of you are making a real commitment 
to America, and for that we appreciate it very much. We look 
forward to moving you into position in a hurry, so as Senator 
McCain said, you can get to work.
    Particularly, I want to welcome Mr. Johnson. As has been 
stated, he is a graduate of Morehouse College, one of the 
premiere institutions in the country. I'm not prejudiced just 
because it's in Atlanta, but we certainly know that he is well-
educated, and we look forward to working with you, Mr. Johnson.
    To Mr. Lynn, Ms. Flournoy, Mr. Hale--one of the things that 
I think is a very smart decision of the Department over the 
last several years is to purchase major weapons systems on 
multi-year contracts. It's saved, literally, millions and 
millions of dollars for the Government and allowed us to buy 
more weapons systems then we would have been able to do 
otherwise within the budget constraints that we've had.
    The F-22 has been a success in that standpoint, as well as 
the C-17 and the C-130. I'm not sure what else we could include 
down the road, but I would simply say to you, I hope as you go 
through the budget process--which is going to be extremely 
difficult, we all know that--that we give great consideration 
to trying to figure out, at least lots of weapons systems that 
we know we're going to have to buy. Let's look at moving into 
multi-year contracts on as many of these different lots of 
weapons systems as we can.
    If any of you have any comment one way or the other, 
relative to multi-years, I would appreciate that.
    Mr. Lynn. Senator, I think multi-year contracting does 
offer an opportunity to get savings. I think you have to look 
at it on a case-by-case basis and see if the economic order 
quantities, and the up-front justify the commitment over a 
multi-year period, but I think when we find cases that occurs, 
the savings to the Department are certainly well-needed, as you 
suggested.
    Mr. Hale. I certainly share that view. I'm mindful that we 
have a tough challenge to make ends meet in DOD, so I encourage 
the components to look where it's appropriate, at things like 
multi-year contracting.
    Senator Chambliss. Mr. Lynn, you and I talked the other day 
about depot maintenance, and the issue of modifications being 
an issue that may be revisited by the Department, with respect 
to whether or not modifications are going to be included within 
the definition of depot maintenance, and how that's going to 
affect 50/50. I would simply ask you for the record, if this 
discussion does come up, and there is any consideration of 
changing current statutes relative to the definition of 
modifications within depot maintenance, that you commit that 
you're going to come back and discuss this with us before any 
kind of major shift in that is done.
    Mr. Lynn. I do commit, Senator, that we'll discuss any 
major changes in depot policy with members of this committee, 
as well as other appropriate Members of Congress.
    Senator Chambliss. Ms. Flournoy, I--along with Senator 
Levin--serve on the Board of the Western Hemisphere Institute 
for Security Cooperation (WHINSEC), which has been a very 
effective entity in dealing with our neighbors to the south. 
We've obviously had some controversy with respect to WHINSEC, 
but with the changes that have been made, we now are providing 
a valuable service to our country because of the relationship 
that's been developed with Central and South American 
neighbors, particularly as it regards the emerging threats.
    I think this has the potential to be--if not the next hot 
spot--certainly one of the hot spots relative to WMD, drug 
trafficking, weapons trafficking, as well as other issues. As 
this policy with respect to WHINSEC is reviewed, I would simply 
ask that you, number one, keep an open mind, listen to the 
commanders at Northern Command and Southern Command who are 
openly, very much in support of what we're doing at WHINSEC 
right now, and I don't know how familiar you are with it, but 
if you have any comments relative to that, I would appreciate 
it.
    Ms. Flournoy. Sir, I have not had the opportunity yet to be 
briefed on details. I am generally familiar, but I would 
certainly pledge to keep an open mind, and hear all views going 
forward, and I do share your belief--fundamentally--that 
engagement with WHINSEC--not only because of the transnational 
threats, but because of all kinds of opportunities that exist 
for our country in relations with our neighbors. But that's a 
critical strategic issue and I will, if confirmed, give it 
strong attention.
    Thank you.
    Senator Chambliss. Again, to all of you, thank you for your 
willingness to serve, we look forward to a very strong working 
relationship with the Department, as we've always had.
    Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Mr. Chairman, I fully understand the time constraints on 
this process. I would say that it's also a bit difficult to 
prepare for nominations each of which has such 
responsibilities. Having gone through two confirmations in this 
committee, each time sitting there for several hours by myself 
while you, actually, and others had your way with me.
    It's a pretty short time period to be able to do all of 
this. I would hope that all of you would pledge to us to remain 
available over the next several months, if we have follow-up 
questions to clarify some of these matters.
    Chairman Levin. If I can interrupt you----
    Senator Webb. Yes.
    Chairman Levin. That's a very important point. We are going 
to keep the record open for questions. In addition to your 
request, which I would expect that they would honor, that they 
always be available to us, but they be particularly available 
to us in the next few months because of the way in which we 
have compacted these hearings, it's an important point.
    Senator Webb. Thank you, Mr. Chairman.
    A minor point, but Mr. Johnson, a counsel on my staff has 
some specific questions with respect to your replies to written 
questions. I think he wants some further clarification. You 
were very lawyerly and precise in your responses, he may want 
just a little more information on a couple of areas. If you 
could contact our office at some point today, I don't want to 
take up my time during the hearing on it. They're probably 
small points.
    Mr. Johnson. I would be happy to do that, Senator.
    Senator Webb. Great, thank you.
    Mr. Johnson. I apologize for being lawyerly.
    Senator Webb. We would expect that, and we will always 
follow up.
    Mr. Lynn, we had, I think, a very fruitful meeting with 
you, yesterday. I appreciate your time, and listening to your 
comments today, the second and the third points that you made 
about your goals, I think, are very relevant to where we need 
to go. When you speak of the need to really get into proactive 
reform measures, I want to work with you on that. We had a long 
conversation about this whole notion of independent 
contractors.
    There is, I think, a fallacy right now when people start 
talking about ``the total force'' as Active, Reserve, and 
independent contractors. Having spent a great deal of my life, 
early on, working on the total force, when something fell into 
long-term, semi-permanent independent contractors, that was 
essentially viewed as a flaw in the total force, not a part of 
it.
    We have a situation now where we probably have more 
independent contractors in Iraq than we do military people, and 
I don't think that's healthy for the country.
    Your second point about making a commitment to really scrub 
the budget--this year's, next year's--and to bring the type of 
tightness to this budget that we haven't seen in awhile, is 
very important to me, and actually, Ms. Flournoy, you have 
written about this. There's an article here from the Washington 
Quarterly, where you went into your own views about the 
environment that we're now going to be in, and how important it 
is to really put a new sense of responsibility and 
accountability into this process.
    In that regard, I'm going to ask you about this Mayport 
issue, both of you. This decision by the Navy to relocate a 
nuclear carrier to Mayport, FL, with the additional requirement 
that it has to refix the process down there in order to enable 
it to handle nuclear carrier facilities--they haven't done this 
in 47 years. Forty-seven years ago, we started having nuclear 
carriers here in Norfolk. There was never a decision--at the 
height of the Cold War--to do something like this.
    The United States Navy, right now, has put forward a budget 
that is $4.6 billion in unfunded priorities--unfunded 
requirements. They have a shipbuilding program that is behind 
schedule. They have about 276, I think, ships. They had 568 
when I was Secretary of the Navy. They're trying to get to 313.
    They have, in my view, a lamentable record over the past 
several years in terms of their aircraft procurement programs, 
and they want to take $1 billion--which is what it's going to 
end up being, if you look at history--above these amounts in 
order to create a redundant facility in Mayport, FL.
    I'm not asking for an answer from you today, but what I 
would like from you is a commitment to examine this at the 
Office of the Secretary of Defense (OSD) level.
    You and I talked yesterday a good bit about the processes 
of the Defense Resources Board--which I sat on for 4 years--and 
I certainly think this is an item--whether I was representing 
Virginia or not, if I were in the Pentagon today, I would be 
saying the same thing. We have $4.6 billion in unfunded 
requirements? We're going to put this on top of it? How are we 
going to build the aircraft fleet back where it needs to be? We 
have empty squadrons out there--how are we going to get to 313 
ships--which is a floor?
    Ms. Flournoy, you've mentioned in a lot of the stuff you've 
written about, how important it is now for us to re-engage in 
terms of our maritime strategy around the world.
    I'm asking for your commitment to take a look at this at 
the OSD level, in terms of strategy and budget priorities.
    Mr. Lynn. Senator, we're going to have to look at the 
entire Navy program as well as the other Services. As you 
suggest, this is a major budget item. We'll commit to you that 
we will review it with you and Congress, about where we think 
we need to go on this program.
    Senator Webb. All right.
    Ms. Flournoy. Senator, I would just add that from a policy 
or strategy perspective, I think we need to take a look at our 
global posture, including our home porting and basing structure 
is going to be, certainly, on the table in the QDR, going 
forward. I would hope that it would be.
    Senator Webb. We're entering a period where DOD, and I 
think the people at this table understand it--other people in 
DOD have to realize that these budgets are going to get a lot 
tighter, these programs are going to have to be justified. We 
haven't even seen a clear strategic justification for this. All 
we've seen is a little bit of rhetoric. We have the briefings 
from the Navy--it's not there.
    I appreciate your saying you will look at this, and we will 
continue to discuss it.
    Ms. Flournoy, you suffer from the same problem that I do, 
in that you are a rather prolific writer, so you have a large 
paper trail behind you on a lot of these different issues. But 
I would like a few clarifications, and if my time runs out, I 
may stay for a second round.
    You have written in the past, that you believe that there 
should be a residual force in Iraq of approximately 60,000 
American military, do you still believe that?
    Ms. Flournoy. Sir, I'm not willing to stand behind that 
number at this time, given that when I wrote that, we were in a 
somewhat different circumstance. There was no Status of Forces 
Agreement (SOFA) commitment, for example, the security 
environment was somewhat different.
    What I do believe is that I think there's a very strong 
commitment to implementing the SOFA, to bringing U.S. forces 
out of the combat role.
    I don't know what the long-term support for Iraqi forces in 
our long-term relationship is going to look like. I don't know 
if the Iraqi Government will want any U.S. forces in Iraq, once 
we reach the end of the SOFA. So, I think it's an open 
question.
    I would not want to be digging my heels on any particular 
number or posture at that point in time. I think the key thing 
is to implement the SOFA, and to reduce our role and our 
numbers there. I think a little bit down the road, we will have 
a better sense of what a security cooperation relationship with 
Iraq, going forward, looks like.
    Senator Webb. My time is up in this round--but I want to 
make sure I fully understand what you're saying. Do you believe 
that the U.S. strategy for that region requires a long-term 
presence of the U.S. military in Iraq?
    Ms. Flournoy. Not necessarily.
    Senator Webb. So, you don't believe it's a requirement?
    Ms. Flournoy. I don't think we know, yet. I don't think we 
know where we'll be at the end of 2011. The honest answer is, I 
don't know. But what I can say is if I am in this position, I 
would welcome the opportunity to continue to look at this, to 
discuss it with you, and other members of the committee----
    Senator Webb. This needs to be clarified.
    Ms. Flournoy. Yes.
    Senator Webb. You don't see--and I'm not trying to put 
words in your mouth--from what I'm hearing, you would not 
analogize the situation in Iraq to, for instance, the basing 
system that we have in Korea, in that----
    Ms. Flournoy. No, sir, I would not.
    Senator Webb. American military presence in Iraq is a 
regional requirement----
    Ms. Flournoy. I do not think Korea provides the right 
metaphor for what our relationship, long-term, with Iraq may, 
or should, be.
    Senator Webb. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Continuing along Senator Webb's line of thought, do you 
believe our relationship, militarily, with Kuwait, has been 
beneficial?
    Ms. Flournoy. Yes, I do, sir.
    Senator Graham. What about the United Arab Emirates?
    Ms. Flournoy. Yes, sir.
    Senator Graham. The point is, whatever relationship we have 
with Iraq is yet to be determined, I think that's a fair 
answer. The SOFA has a 2011 date on it with the ability to 
renegotiate a long-term agreement. As I understand it, their 
navy and air force are almost nonexistent, so I encourage you 
to keep that line of thinking up. Let's evaluate each year 
where we are with Iraq, and make a good decision that when we 
leave that we have a stable partner behind, that like Kuwait 
and other partners in the region, has been very beneficial in 
terms of our long-term strategic interests.
    I applaud you for that kind of thinking, and nobody here 
expects you to make a decision 3 years out until we look at the 
information.
    Now, one of the things that we're going to be dealing with 
in this new administration is the closing of Guantanamo Bay. I 
can assure you in this regard, a fresh start at the Pentagon is 
welcome.
    Where I stand, in terms of looking at detainee policy, Mr. 
Johnson, you come with great recommendation and high opinion by 
the military lawyers. The chairman hit on a very important 
point, along with Senator Reed, we need to make sure we do not 
make the mistakes of the past.
    I look forward to working with you, as well as the 
uniformed lawyers, to make sure that as we go forward, and when 
we close Guantanamo Bay--which I think we will--that we make 
some very wise decisions as a Nation. To make sure we humanely 
treat detainees, regardless of who they are, and what their 
ideology may be. That we have a transparent justice system, and 
that we also protect the Nation against people who are 
committed to our destruction.
    In that regard, Mr. Lynn, one thing I would ask from you--
there's been a report in the media that 61 of the detainees who 
have been released have gone back to the fight in some form. I 
don't know if that's accurate or not, but if you play the role 
of Gordon England, it will be up to you, really, under the 
current system--and I think we want to maybe change that, quite 
frankly--as to who stays and who goes.
    Two things--see if you can confirm how many people have 
gone back to the fight. Define what the fight is. Also, see if 
you can tell us, of the detainees that have been captures, how 
many of them were inappropriately detained? So that we can make 
a logical decision, going forward, about what kind of system to 
employ.
    There's two things we want to be sensitive of. We don't 
want to put someone in custody, long-term, who's in the wrong 
place at the wrong time. We don't want to let people go who 
present a military threat in the future. We have to do that 
based on a system that's competent, that's transparent, and 
that has checks and balances.
    Now, as we go forward, Mr. Lynn, what is your view of long-
term detention policy when it comes to people that we have 
captured that may not be subject to the normal criminal 
process? Have you thought about that much?
    Mr. Lynn. Thank you, Senator. I'm aware of the role that, 
at least, the current Deputy Secretary plays, in terms of the 
detention release policy. I think the new administration will 
be looking at that, and I can't tell you right now whether I 
would be continuing that role or not. You're correct--I think 
that's going to be reevaluated.
    In answer to your specific question, clearly where 
possible, we want to prosecute. There are going to be 
circumstances where that's not going to be possible, and we're 
going to have to evaluate those individually. There's clear 
authority to hold enemy combatants. There's discussion as to 
what actually constitutes an enemy combatant, but we have that 
authority, and----
    Senator Graham. Would you think a member of al Qaeda should 
be classified as an enemy combatant?
    Mr. Lynn. I'd have to know more circumstances than simply 
that, Senator, really, to fully answer the question.
    Senator Graham. Okay, well, if I gave you a situation where 
the evidence was conclusive that this person was a part of an 
organization called al Qaeda that was actively involved with 
activity with al Qaeda, would they be a good candidate to be 
considered an enemy combatant?
    Mr. Lynn. Without quite going down the line of your 
hypothetical, Senator, I think there are certainly cases that 
al Qaeda operatives would be considered enemy combatants.
    Senator Graham. Okay.
    Mr. Johnson, when it comes to the criminal law--domestic 
criminal law and military law--do you see a difference between 
what the military justice system can do, and traditional 
domestic criminal law regarding detaining enemy combatants?
    Mr. Johnson. Yes, Senator, I believe I do.
    First, let me preface my remarks by saying, I'm pretty much 
a traditionalist when it comes to the essential mission of the 
military. I believe that implicit in the ability of the 
military to do its job is the inherent ability to detain an 
enemy combatant captured on the battlefield. I think that's 
implicit in the job. I believe that the Supreme Court would say 
the same thing, and, in fact, it did, in the Hamdan decision.
    When Congress passed the authorization for the use of 
military force, the Supreme Court determined that, implicit in 
that was the authority to detain an enemy combatant----
    Senator Graham. If I could interrupt you right there. If a 
person is, in fact, detained as an enemy combatant, as I 
understand the law of armed conflict, once that decision has 
been properly made, there is no requirement to release them 
back to the fight if they still present a military threat.
    Mr. Johnson. If, in fact, Senator, that person was properly 
captured, and the circumstances suggest in your hypothetical 
that you posed is, in fact, a member of al Qaeda----
    Senator Graham. Right.
    Mr. Johnson. The al Qaeda that Congress had in mind in 
2001.
    Senator Graham. Right.
    Mr. Johnson. Then, I think the answer to your question is 
yes.
    Senator Graham. I look forward to working with you to clean 
up what is, quite frankly, a mess. The Military Commissions Act 
that was originally passed by our committee that enjoyed 
complete Democratic support, and three Republicans, may be a 
good document to look at in terms of how you would try somebody 
who is alleged of committing a war crime against the United 
States. This idea, how you detain someone that we believe to be 
an enemy combatant, indefinitely, is a thorny issue. But I 
think we can get there.
    My goal would be to tell the world that the reason this 
person is in prison, under military control, is not because we 
say so, but because there's competent evidence to suggest 
they're part of an enemy force that's been reviewed by an 
independent court, outside of DOD, and that more than one 
person reached that conclusion.
    If we could accomplish that goal, I think we'll improve our 
image and keep America safe. Just as sure as we're sitting 
here, we're going to pick somebody up in Afghanistan, and there 
are 900 people imprisoned in Afghanistan, that's going to have 
high intelligence value, may not be subject to trial in the 
United States, but presents a very serious threat to our 
national security and our troops in the field. Let's get ahead 
of that in a bipartisan manner, and I think this team can 
deliver. I think you're outstanding nominees, and I look 
forward to supporting you all.
    Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I want to add 
my appreciation for your decision to serve, and certainly I am 
impressed with the comments that you've all made this morning, 
as well as your written statements.
    We're fighting two wars, and we're preparing for threats 
that emerge in the future, and are emerging right now. So the 
challenges that you're going to face are, needless to say, 
daunting. But I believe that you have the capacity to help us 
all deal with those emerging, as well as continuing, threats 
that we face today. I have a question regarding--and as 
chairman of the Personnel Subcommittee in the past--I certainly 
have a question regarding dwell time, as it might relate not 
only to the current circumstances, but to the future 
circumstances with the reduction of forces in Iraq, and an 
increase in Afghanistan.
    Mr. Lynn, we've already had challenges, meeting the goals 
for dwell time between deployments for troops with certain 
specialties. What do you consider a minimum for dwell time, 
under the circumstances we face today, and will that--in some 
respects--change as this transition goes forth?
    Mr. Lynn. Senator, I don't have a specific minimum at this 
point, prior to review, but I agree with the thrust of your 
question--deploying forces on repeated tours with 3, 6, 9 
months only, between those tours is a long-term detriment to 
the quality of the force. I think it's often been said that you 
recruit individuals and you retain families. I believe strongly 
that's the case.
    I think we have to be true to our military families and 
increase the dwell time to a level that reduces the burden on 
those families.
    Senator Ben Nelson. I know that Secretary Gates is 
committed to increasing it, and we all are. I guess the 
practicalities that we're going to face in terms of that 
transition are certainly going to have to be dealt with. I'm 
assuming that both you and Ms. Flournoy will do everything 
within your power to get the dwell time as generous as 
possible, under all circumstances.
    Mr. Lynn. Absolutely, Senator.
    Senator Ben Nelson. Mr. Hale, you said something about 
working diligently to get to the point of an audit. Do you 
honestly think that it's possible to get an audit of DOD?
    Mr. Hale. Senator, the Department has a plan. You're 
probably familiar with it, the Financial Improvement and Audit 
Readiness Plan, and I think the Department is working toward 
it. I'm mindful that the hardest things have been put to the 
end, and that there are enormous challenges remaining. I think 
at this point I'm not prepared to answer, definitively, your 
question, but I'd take your point, and if I'm confirmed, that's 
certainly something I want to look at.
    We may need to look at some priorities. What do we do first 
that would be most helpful? The goal of the audit, in my view, 
is just not simply to have an unqualified opinion, but to 
verify that we have good financial information. There may be 
some priorities we can impose on the audit, that lead most 
quickly to getting verification that we have good data.
    Senator Ben Nelson. In response to your answer, would it be 
possible to have, let's say, the equivalent of a partial audit 
in certain areas, that could be stairstepped? In other words, 
there are some high priority areas where probably the 
challenges are the greatest, in terms of getting an audit. 
There are going to be other areas where the necessity of an 
audit is stronger than, perhaps, some others. Are you going to 
look at trying to do this in some rational, stairstepping 
process?
    Mr. Hale. I think the answer is yes. There are some limits 
on partial audits, and the degree to which they can be done, 
but consistent with those limits--or abiding by those limits--I 
think we do need to look at priorities.
    Senator Ben Nelson. But your goal is to, essentially, at 
some point, get an unqualified audit?
    Mr. Hale. That is the law, and we are trying to pursue it. 
So, yes, it remains a goal. If confirmed, I certainly want to 
look at this issue. I'm mindful of the challenges.
    Senator Ben Nelson. It's Herculean.
    To increase public support for crucial nuclear security 
programs, and to achieve effective allocation of resources, Mr. 
Hale, what is your opinion on the possible recommendation for 
the executive branch to submit--as part of the annual budget 
request--both an unclassified, and a classified accounting of 
all nuclear weapons-related spending?
    Mr. Hale. Senator, that's a good question. I have to 
confess, I know about it only in general terms. I think that's 
one where borrowers learn more if I'm confirmed, and get back 
to you with a specific answer to the committee.
    Senator Ben Nelson. Because generally what we get is fairly 
sketchy, if it's related to something that's classified. 
Perhaps it is sketchy, in total, as well. But I'm hopeful that 
you'll look at that very carefully. I think it's a great 
recommendation, I hope we can see it followed.
    Ms. Flournoy, as we've talked in the past, the shortages of 
mid-level officers is continuing to be a problem for our 
military. The mid-level, because many of those mid-career 
warfighters are opting out of the military, because of the 
high-demand, high-stress deployment tempo, which puts this in 
connection with the previous question about dwell time. Do you 
have any thoughts about whether we can continue to have 
incentives? Or have we reached the point where incentives are 
not going to be sufficient to help us retain those mid-level 
career officers?
    Ms. Flournoy. Senator, I think you've put your finger on 
something that's very important to the long-term health of the 
All-Volunteer Force. I would hope that, going forward, the 
Department would take a close look at this issue.
    I think when you think about incentives, we have to define 
that broadly, not just financial incentives, but educational 
opportunities, career development opportunities, flexibility, 
and so forth. I think we are asking so much of the people who 
serve, and particularly our officer corps--our field-grade 
officer corps today--that if we're going to retain these 
incredibly skilled, experienced people, we're going to have to 
look anew at their career paths, at their incentives, and so 
forth. I would hope, if confirmed, to have an opportunity to be 
part of that examination.
    Senator Ben Nelson. I would assume that would apply, as 
well, to the professional ranks, with physicians, dentists, and 
other professional areas? The challenge there is both 
recruiting in the professional ranks, officers, but the 
retention is true in both cases--of our warfighters as well as 
those who provide the backup services.
    Ms. Flournoy. Yes.
    Senator Ben Nelson. I see that my time is expired. Thank 
you very much, all of you, and we look forward to working with 
you in the days ahead.
    Thank you.
    Chairman Levin. Thank you so much, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I want to thank our 
nominees for their willingness to serve their country, and many 
of you have had careers in public service, and it's a great 
calling. We appreciate your willingness to answer that call 
again.
    Thank you for being here, thank you for the opportunity to 
meet with you individually, as well, and pull some of these 
questions.
    I do want to expand upon some of these issues that perhaps, 
have been covered, at least at some level already. But I'd like 
to get Mr. Lynn's and Ms. Flournoy's response to some questions 
relating to energy issues. Like I said, I think some of that 
ground has perhaps been covered. But, as we all know, we spend 
an awful lot of money every single year, sending that money to 
unfriendly foreign nations to purchase oil, some of which ends 
up in terrorist hands, and perhaps then is used by those 
organizations to destroy us, and to attack Americans.
    Our military is, of course, one of the biggest consumers of 
energy and of oil. The Air Force, alone, is the Federal 
Government's largest energy buyer, and spent $5.6 billion for 
aviation fuel in fiscal year 2007.
    As we all know, too, in 2007, 2008, oil prices reached 
record highs, which had a direct impact on the Air Force's 
readiness. Now we have oil prices that have come down, compared 
to what they were only a few months ago, and we tend to put 
those issues on the back burner, and get a little bit 
complacent, which I think is a big mistake.
    I think it's important that we look at ways that we can 
prevent that sort of crisis in the future, when those fuel 
prices go up again--which we know they will. That's why I've 
been pleased that the Secretary of the Air Force, Mike Donley, 
has signed an Air Force Energy Program Policy Memorandum last 
month which, among other things, establishes the goals of 
certifying the entire Air Force fleet, to use synthetic fuel 
blends by early 2011, and to acquire 50 percent of the Air 
Force domestic aviation fuel requirement be an alternative fuel 
blend by 2016.
    My question is, do you think that the Air Force's energy 
initiatives regarding synthetic and alternative fuels is worthy 
of Department-wide consideration?
    Mr. Lynn. Thank you, Senator. Let me come back to your 
specific question, just make a couple of general points that--I 
agree with your emphasis on the energy area. The President-
elect, as a general policy, extending well beyond the 
Department, is committed to reducing the oil dependency, given 
the foreign sources of supply, given the global warming 
implications, and so on. The Department will certainly be a 
critical part as the largest government consumer of energy.
    As you suggest, there's a second reason, beyond those broad 
policy reasons. The financial implications to the Department of 
relying on oil are severe and have the potential to get much 
worse. There's an enormous savings out there if we can move 
away from that, as you indicated.
    Finally, I'd add one thing to yours. There's an operational 
benefit if we can move away from oil-based products, in that a 
huge part of the logistics strain of the United States military 
is just providing fuel to the forward forces. To the extent 
that we can find other, more efficient ways of supplying 
energy, whether they're fuel cells or other means, I think it 
will allow the military to perform the mission in a more 
effective way.
    For all of those reasons, I agree with the thrust of your 
comments. I'm not completely familiar with Secretary Donley's 
initiative, but your description is certainly compelling, and 
we'll take a close look at it--and what kind of broader 
application it might have, if confirmed.
    Senator Thune. Ms. Flournoy?
    Ms. Flournoy. Senator, I would agree that, given the size 
of the enterprise, DOD has an opportunity to be a leader in 
areas of conservation and efficiencies, alternative fuels, and 
so forth. I have not had the opportunity to look at the 
specific proposal you put on the table, but I look forward to 
having that opportunity.
    I would also just underscore the importance of thinking 
about energy security and climate change together, and as key 
elements of the future that DOD has to grapple with in its 
military planning. I think this goes beyond current practices 
in how we use energy, but also to understanding how some of 
these energy trends are going to change the security 
environment that the U.S. military operates in 10, 15, 20 years 
out.
    Senator Thune. The RAND Corporation recently issued a study 
that estimates that synthetic fuel would reduce the U.S.'s 
reliance on foreign oil by as much a 15 percent, while possibly 
generating up to $60 billion in domestic revenue each year.
    One of the things that I've been advocating, and we've 
worked with my colleagues on the committee the last couple of 
years in the defense authorization bill, is to try to and get 
some procurement authority, multi-year procurement authority 
for purchasing synthetic fuel. The question I have is, would 
the Defense Department be supportive of efforts by Congress to 
provide incentives to promote private sector investment in 
synthetic fuel production, such as expanding the military's 
multi-year procurement authority for purchasing domestically-
produced synthetic and alternative fuels? I would direct the 
question, again, to Mr. Lynn and Ms. Flournoy.
    Mr. Lynn. Senator, I would have to look at the question, 
and I pledge to you that I would do so, but I can't make a 
commitment prior to that kind of review.
    Senator Thune. Okay.
    Ms. Flournoy. I'm afraid I'm going to say the same thing.
    Senator Thune. I expected that response. But I do look 
forward to working with you, and hope we can find a way to make 
that happen. I think it will incentivize a lot greater 
participation by the private sector in expanding synthetic fuel 
production, if we have that type of multi-year procurement 
authority.
    As you probably know--and again, I would direct this to Mr. 
Lynn and Ms. Flournoy--the 2006 QDR stated the Department plans 
to develop a new land base penetrating long-range strike 
capability that would be fielded by 2018. Secretary Gates 
recently discussed that new national defense strategy in an 
article that was published in this month's edition of Foreign 
Affairs Journal, and it stated the U.S.'s ability to strike 
from over the horizon will be at a premium, and will require 
shifts from short-range to long-range systems, such as the 
next-generation bomber.
    In your view, will the next-generation bomber be vital to 
our national defense strategy, and what steps would the 
Department take to ensure that the next-generation bomber is 
able to achieve initial operational capability by 2018, which 
is currently the goal?
    Mr. Lynn. Senator, the review of the next-generation bomber 
program, and the underlying strategic premises that led to it, 
is going to be one of the central parts of the QDR that we'll 
undertake, if confirmed.
    The general trend, I think you're right, as we've moved 
towards more of an expanded view to look at Pacific scenarios, 
as well as European scenarios, the range of aircraft has 
certainly become a more important variable. The proliferation 
and the sophistication of air defenses have made stand-off 
almost essential to survivability. Both those strategic trends, 
I think, continue, but we're going to have to evaluate each 
program within those trends in this QDR that's coming forward.
    Senator Thune. Yes.
    Ms. Flournoy, anything to add to that?
    Ms. Flournoy. I would agree with that. I think the need for 
a long-range precision strike that can penetrate the most 
sophisticated enemy air defenses is absolutely critical. 
Hopefully the Department will use the QDR to examine the range 
of possible capabilities that will actually get us to meeting 
that need. Certainly the long-range bomber will be part of that 
discussion, a central part of that discussion.
    Senator Thune. Mr. Chairman, I see my time is expired, so I 
want to thank our nominees for their service. We look forward 
to your speedy confirmation, thank you.
    Chairman Levin. Thank you, Senator Thune.
    After Senator McCaskill, I'm going to have to leave for a 
few minutes, and then Senator Webb is kindly going to take over 
for that period of time.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I'd like to begin with Mr. Johnson, if I could. Procurement 
fraud in DOD--in the 1990s, between 130 and 391 cases per year 
were referred for criminal prosecution. In 2007, that number 
was a whopping 11. Now, at the same time, you had the same 
drop-off in civil fraud cases. This defies common sense. We've 
had a massive explosion of procurement during the conflict in 
Iraq, and I would like to get a commitment from you today that 
this would be one of your highest priorities, as we strive to 
tell the taxpayers of this country that we get it, that they 
have been fleeced, in many instances, and our military has been 
shortchanged as a result of some of the procurement fraud that 
has gone on during the Iraq conflict, and that what is rumored 
to be a backlog of these cases that exist right now, would be 
immediately forwarded to the Department of Justice for 
appropriate prosecution.
    Mr. Johnson. Senator, I agree, given the growth of 
procurement dollars, that a dramatic fall-off like that--I'm an 
optimist in life, but I tend to doubt that it's because there's 
so much less procurement fraud out there in 2007.
    My recollection is, I actually prosecuted procurement fraud 
when I was a prosecutor, and this is obviously a very important 
area and I certainly would make that a priority. Yes.
    Senator McCaskill. Thank you very much.
    Mr. Hale, you and I had a chance to visit about the scandal 
at the Defense Contracting Audit Agency (DCAA). Obviously, the 
credibility of contracting is split apart at its core, if the 
very agency that's supposed to be looking over everyone's 
shoulder has the kind of problems that were documented by GAO, 
I mean, nothing's worse than an audit agency being found not to 
be compliance with auditing standards in government. It doesn't 
get any worse than that.
    Part of the examination of that scandal disclosed the 
lawyer for the audit agency wrote a letter to the 
whistleblower. I want to make sure that I share it with both 
you and Mr. Johnson, because it is the most egregious example I 
have ever seen of an unethical and completely inappropriate 
memo, saying to this person, ``Be quiet. You are not supposed 
to talk about this stuff to anyone, Congress or anyone else.'' 
It is enough to make your blood boil, when you read this memo.
    At the time, I asked what kind of action had been taken 
against the lawyer that wrote this memo? I got two excuses. 
One, the Special Counsel's investigation was still open, making 
any action inappropriate. Then, unfortunately for you Mr. 
Johnson, they passed the buck to you. That, in fact, the lawyer 
at the DCAA is in your chain of command, rather than the DCAA's 
chain of command.
    I would like your comment, Mr. Hale, about what you intend 
to do about the lawyer--I'm sure that lawyer is still there--
and I would like some comment about what will happen to this 
lawyer, who basically said to someone who was trying to right a 
wrong, ``Be quiet or you're going to pay.''
    Mr. Hale. Senator, I am concerned about the issues at DCAA, 
as we talked about yesterday. It is also an ongoing 
investigation, I want to see that investigation completed, and 
if I'm confirmed, I will commit to you that I'll be sure to 
review it, to solicit help from the Department's lawyers, and 
figure out what the right strategy is. But at the moment, I 
can't say what that is, but you have my attention, the issue is 
important, and we, if I'm confirmed, will certainly seek a 
resolution.
    Senator McCaskill. I certainly understand that employees 
within DOD have a standard of conduct. But I also understand, 
we can't do our job in oversight, if they are all stifled. I 
wanted to make sure that they understand that there are certain 
times, an obligation to come forward, and talk about what is 
happening internally.
    Mr. Johnson, I didn't mean to cut you off. Did you have 
anything to add?
    Mr. Johnson. I obviously am not familiar with the 
particular circumstances here. I agree with Mr. Hale, this is 
something important to look into.
    Just as a practical matter, my experience in life is, if 
you tell somebody to be quiet and go sit in a corner, it's 
probably going to come back and bite you, at some point.
    Senator McCaskill. It did.
    Mr. Johnson. Right.
    Senator McCaskill. Yes, in this instance, it did.
    Finally, Mr. Lynn, first of all, all of you, I appreciate 
your service. All of you are not coming back for the glory or 
the money, you're coming back because you want to serve, and I 
thank all four of you for that. I don't mean, by directing this 
question to you, to any way impugn your integrity.
    But the revolving door is an important issue for us to talk 
about, between the Pentagon, and the defense contracting 
community. You went directly from the Pentagon to a defense 
contractor. You are coming back directly from a defense 
contractor--one of the largest defense contractors--into DOD. 
In that role, you have a major responsibility over acquisition 
and procurement. This is troubling to a lot of people who are 
just looking at this situation.
    We have gone a long way in Congress to try to begin to stop 
the revolving door. We haven't done as well as we'd like to, 
but there's a whole lot of attention in the public about the 
revolving door between working in Congress and lobbying in 
Congress. Frankly, there isn't as much attention in the defense 
sector. It's an incestuous business, what's going on, in terms 
of the defense contractors, and the Pentagon, and the highest 
levels of our military.
    I'd like to give you an opportunity to speak to it, since 
you're an example of it. [Laughter.]
    Mr. Lynn. Senator, when I left the Department, I followed 
the strict ethics procedures, and didn't have any contact with 
the Department for the period that's set by law. On coming back 
into the Department, there are equally strict ethics procedures 
on what issues I can handle, and what issues I can't. I will be 
working with the General Counsel's Office to ensure I follow 
those ethics procedures completely.
    Senator McCaskill. Do you feel like you could be somebody 
who could be a reformer, in this regard? Do you sense that 
there's something else that we need to do? Do you sense that 
there may not be a problem that there is, maybe, too much 
short-cutting of picking up the phone, and dialing into the 
Pentagon from a defense contract agency because of former 
friends that are there, and vice versa? I mean, do you have any 
sense that reform is needed here?
    Mr. Lynn. Well, I----
    Senator McCaskill. Do you hear the hopeful tone in my 
voice?
    Mr. Lynn. I do hear the tone, Senator.
    I'm not aware whether the DCAA case, you probably have more 
familiarity with the details as to whether that was people 
leaving DCAA and contacting back to DCAA, I hadn't heard that, 
but perhaps you know more. I think we need to keep----
    Senator McCaskill. The best example I can give you is the 
Thunderbird scandal. That was somebody who had left the 
military and was working for a contractor, and reached back in 
the get a contract, a sweetheart contract, no bid, 
noncompetitive contract for some public relations work for the 
Air Force Thunderbirds--that's one example, I can give you some 
other examples.
    Mr. Lynn. Senator, I certainly believe that we need to 
maintain the highest ethical standards. I pledge to you that I 
will do that personally.
    In terms of your hopefulness that we can reform, I will 
work to not only ensure that we follow the highest ethical 
standards, but that we have the transparency that provides the 
public with the belief, the understanding that indeed those 
standards are being followed. It's not just the reality, it's 
the perception, and I understand that, and we plan to work on 
both.
    Senator McCaskill. Okay. Thank you all very much. I look 
forward to working with you.
    Senator Webb [presiding]. Thank you, Senator McCaskill.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    In the absence of Chairman Levin and Ranking Member McCain, 
I am definitely honored to be on this committee, and I am 
excited about being here and working with all of you.
    North Carolina has one of the largest military footprints 
of any State in the country, and we're very proud that in North 
Carolina, our long-term support of the military--and as a 
member of this Armed Services Committee--I truly hope to be 
able to provide the support and advocacy that the many North 
Carolina men and women in our Armed Forces deserve.
    To the nominees, I want to offer you my congratulations. 
None of you would be here before this committee, if not for 
your competence, and your records of service. Should you all be 
confirmed, I am confident that you will serve our Armed Forces 
with distinction. So, thank you on that regard.
    As I mentioned, and I hope you know that the military is 
very important to North Carolina, and North Carolina is 
important to the military. It's my hope that, should you be 
confirmed, we can work closely together in the year to come.
    The people of North Carolina are very pleased about the 
results of the Base Realignment and Closure (BRAC) Commission, 
and the Army and Marine Corps ``Grow the Force'' initiative. 
Both Fort Bragg and Camp LeJeune are slated to receive a large 
influx of personnel. The Fort Bragg and Pope Air Force Base 
BRAC Regional Task Force are ultimately expecting total gains 
of about 40,000 military and civilian personnel in and around 
the city of Fayetteville. I think that those changes are 
ultimately going to be a great thing for the military and the 
State of North Carolina.
    But in the meantime, there is a lot to be done in the 
surrounding communities to get ready for that increase in 
personnel that we're going to be seeing in the next few years. 
Obviously, it's a welcome challenge.
    We, in fact, are likely to see a large increase in funding 
for State and local construction projects, as a part of the 
economic recovery package that will be considered soon. I hope 
that in North Carolina some of that funding can be devoted to 
school construction for the added military personnel and 
people, and the infrastructure upgrades around the bases.
    In the case of Fort Bragg, some of these projects will be 
essential to ensuring the security of the Nation's largest Army 
post. But it's very important that BRAC be implemented as 
smoothly and efficiently as possible.
    Mr. Lynn, let me ask you a question. Do you foresee any 
significant barriers to an efficient and timely implementation 
of BRAC? I would ask that you would work with me and the 
committee to ensure as smooth and orderly a transition as 
possible.
    Mr. Lynn. Thank you, Senator. I agree with the Senator that 
the BRAC process has been an incredibly important process for 
the Department as it right-sizes its infrastructure to the new 
size of the force over a couple of decades, and that's been 
something that's gone through, I think, five iterations now, 
and we wouldn't have been able to get anywhere close to the 
right-sized infrastructure without that.
    I would pledge to you that we would want to protect the 
integrity of that process. I can't get into specific 
commitments on individual programs or projects, but it's 
certainly something we would want to work with you and ensure 
that the process remains as strong as it has been.
    Senator Hagan. Thank you.
    Again, congratulations to all of you. I certainly do look 
forward to working very closely with you in the years to come.
    Thank you, Mr. Chairman.
    Senator Webb. Thank you, Senator Hagan.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    There's good and bad being last. The good is, everyone 
knows there's only about 8 minutes left.
    Senator Webb. Just for the record, Senator, there will be a 
second round.
    Senator Begich. I know, I'm saying from this round.
    Senator Webb. Don't think it's going to be over in 8 
minutes.
    Senator Begich. This round, and the bad is, lots of the 
questions have been asked.
    I'm going to give a couple, very parochial, but before I do 
that--Mr. Lynn, your earlier comment about your child, I 
clearly understand that. If my son were here, it would be 
totally disruptive, and I'm not sure how it would all go.
    To you, your family, I'm watching your son, here--I'm going 
to get some lessons of how you do this for 2 hours--very good, 
I give you great credit, there.
    I'm going to ask two very parochial questions, but then 
I'll ask a couple of general questions. I'll leave them to you, 
Mr. Lynn, and you can direct them to whoever would like to 
answer them.
    Contrary to popular belief, we really don't see Russia from 
most of Alaska, just for the record. [Laughter.]
    But Russian military jets often push the envelope and make 
flyovers along the Alaska border, prompting intercepts to 
launch from Elmendorf Air Force Base and other Alaskan military 
installations.
    Alaska also finds itself the closest American State to 
North Korea, and Alaskans often get nervous when China and 
Taiwan start arguing, because of our proximity to the Pacific 
Rim.
    Anchorage, Alaska's port has been deemed one of the 
Nation's top 16 strategic ports because of its vital mission of 
launching the Stryker Brigade from Fort Richardson and Fort 
Wainwright in Fairbanks. In short, Alaska truly, in my belief, 
is on the front-line of the national defense. What is your 
assessment of the strategic importance of Alaska when it comes 
to America's interest on the Northern Pacific Rim?
    Mr. Lynn. Clearly, as the Senator stated, Alaska plays a 
very important role in terms of the U.S. military posture in 
the Pacific Region, both in terms of the ballistic missile 
defense capabilities that are resident there, as well as the 
forces from all of the Services that are in Alaska. I don't 
want to say one State is more important than another, but 
clearly, Alaska's size and position makes it a critical element 
of our national security.
    Senator Begich. Let me ask you another question, again, 
very specific to Alaska, but yet to the national defense. We're 
very proud, in this Nation, to be the first fully-deployed in 
operational defense against ballistic missile attack, at Fort 
Greeley, the Ground-Based Midcourse Defense (GMD) system.
    First conceived under the Clinton administration, in a very 
strong, bipartisan approach here in Congress, including members 
of this committee, the GMD is an important element in homeland 
security, providing a deterrent, and if necessary, active 
defense against threats around the globe.
    This past December, the program completed another 
successful intercept test by detecting, intercepting, and 
destroying a target warhead over the Pacific.
    I remain, and continue to be, very supportive of this 
testing of the GMD system against a wide range of targets, and 
I strongly encourage the Pentagon to adequately fund the GMD, 
including testing, operations, maintenance at Fort Greeley and 
other Alaska sites, and expansion of the Fort Greeley 
interceptor inventory, especially if we do not immediately 
deploy interceptors in Europe.
    For either one of you, or whoever would like to answer 
this--can you give me your opinion and thought of how you would 
support this type of system?
    Mr. Lynn. Why don't I start and ask Ms. Flournoy to follow?
    Senator Begich. Very good.
    Mr. Lynn. Senator, I think missile defense programs should 
be treated like all defense programs, and that is that one, 
they should be based, fundamentally, on a judgment of the 
threat that we face. Then they need to do the best that we have 
to meet that threat, and diffuse it.
    Second, they need to be cost-effective. We need to follow a 
program that's going to get the best return for the taxpayers, 
and then finally, we need to follow a strong testing regime to 
make sure that, in fact, they will work to do the mission that 
they've been intended to you.
    I think the missile defense program, as you've said, the 
GMD program in Alaska is proceeding down those paths. Without 
making any specific commitments on that, that would be the 
approach that we would take to that program, as well as the 
other missile defense programs.
    Senator Begich. Thank you.
    Ms. Flournoy. Senator, I would agree with Mr. Lynn's 
remarks. I would only just add that I think there are some 
imminent vehicles for looking at a broad review of missile 
defense, not only for long-range systems, but medium- and 
shorter-range systems. I think that will be an important 
element of both the QDR and the upcoming budget and program 
reviews.
    I would just underscore the need to look at these things 
holistically, and to look across the board to try to look at 
how best we can prioritize. So, I look forward to discussing 
the Alaska system in that context with you, going forward.
    Senator Begich. Thank you very much.
    Mr. Chairman, I don't know how the timing works, this is my 
first time. So, I'm going to keep rapping until someone tells 
me, or a hook comes, right? Okay. [Laughter.]
    I didn't hear any discussion, as I'm a former mayor of 
Anchorage, AK, and we do a lot of work, we have--in the State 
population, 11 percent of our population are veterans, another 
4 percent are Active military. A very large percent of our 
population is related--indirect and directly--to the military.
    The program we worked a lot on was family support. I'd be 
interested--and you don't have to go into the detail here, but 
this is my opinion from a mayor's perspective, looking in, that 
there is good support, but not enough.
    An example I would give you, in Anchorage, we have our 
Women, Infant, and Children program satellite office on the 
base, because of the needs. I have personal opinions about why 
that should not be that case. But, can you tell me, as you 
mentioned, about reform and some of the activities you're going 
to take, where are you going to include the support for 
families on base, off base, and those kind of necessary 
elements, that I truly believe from a mayor's perspective, as a 
former mayor, were there, but not as aggressive as they could 
have been?
    I know, as a mayor, we did a lot with the military, great 
relationship, and actually started with the U.S. Conference of 
Mayors, a new committee to get other mayors to do the same 
thing, because we think mayors have a great role in supporting 
the military that connects to them. But how do you see support 
and resources to support those families?
    Mr. Lynn. Senator, we're well aware that we've recruited, 
we've trained, we've equipped the best military force the 
world's ever seen. We're equally well aware that we're not 
going to retain that force, and we're not going to retain that 
capability, unless we treat our military families right. So, we 
will provide the resources that military families need to be 
able to sustain the kinds of activities, the wars that we're 
fighting and that we know that the families at home are at 
least as burdened by these deployments as the men and women who 
deploy themselves, so we need to find and support the programs 
that support those families.
    Senator Begich. Will you have, in your process, some sort 
of strategic plan on how you'll do that?
    Mr. Lynn. It will certainly be a critical element as we 
develop the budgets and programs, starting with the fiscal year 
2010 program, and anything else, actually, that's needed in the 
fiscal year 2009 supplemental.
    Senator Begich. Another question, kind of broader, as the 
Arctic continues to be a new frontier in a lot of ways, Alaska 
is going to be right up there. Have you, or do you have any 
commentary regarding how the military will engage in Arctic 
policy?
    Mr. Lynn. I'm afraid I don't, but maybe Ms. Flourney?
    Ms. Flournoy. I don't have a comment on current policy, but 
what I can tell you is that's a great example of what I was 
referring to when I talked about thinking about energy security 
and climate change in our military planning, in our scenario 
development, and so forth. As things change in the high north, 
then you're going to see implications for the U.S. military 
that we need to try to anticipate and plan for. I would hope 
that some of our longer-range planning and thinking would take 
that and other energy developments into account.
    Senator Begich. Thank you very much.
    I have my cue card, my time is up.
    Chairman Levin [presiding]. Senator Webb will start our 
second round.
    Senator Webb. Thank you, Mr. Chairman.
    First, I would like to express my appreciation that Senator 
Nelson raised this issue of dwell time. I would like to give 
you another group of thoughts on this. I hope you'll keep in 
mind, as someone who wrote and introduced the dwell-time 
amendment in 2007, and someone who also wrote and introduced 
the GI bill.
    We have a tendency inside the Pentagon--I spent 5 years in 
the Pentagon--of looking at these issues simply in terms of 
retention. Specifically, as the dialogue went back and forth, 
we talked about how important it is to retain field-grade 
officers. In the Pentagon, you're hanging around generals, 
admirals, and captains, and you get a lieutenant colonel in 
front of you, and you tend to think he's a lower-ranking 
officer. In a rifle company, a lieutenant colonel is God. We 
tend to forget, in this environment--and I say that as someone 
whose son and son-in-law both are enlisted in the Marines right 
now--we tend to forget that 70 percent of those who enlist in 
the Marine Corps, and 75 percent of those who enlist in the 
Army, leave the Service at or before the end of their first 
enlistment.
    We have a stewardship to those people, that's quite a bit 
different than the way we address the career force. These 
multiple deployments, with very short time periods in between, 
have an emotional impact that stay with people to the end of 
their lives. I say that as someone whose first job in 
Government was working as a counsel on the House Veterans 
Committee, 32 years ago, dealing with the problems of people 
who served in Vietnam.
    So, part of it's a retention issue, part of it is how we 
deploy the force, but the traditional dwell-time ratio has 
always been two to one, until we hit this period. Two years 
here for 1 year gone. One year here for 6 months gone. We got 
all the way down to below 1 to 1. The Commandant of the Marine 
Corps has been very specific about trying to get it back to 2 
to 1, we tried to pass an amendment just saying it ought to be 
1 to 1.
    Whatever your political thoughts are about the wars we're 
fighting, or anything else, we need a safety net under these 
people for their long-term emotional health.
    So, when you're getting the visits of all of these high 
rankers, and we're talking about retention, and we tend to do 
it constantly on this committee, please do not forget that the 
issue is much larger than retention. It is the long-term 
welfare of our citizen soldiers who step forward to serve.
    Ms. Flournoy, I waited for a second round, because I think 
it's very important to hear from you on two other issues with 
respect to your views on where the Department should be going. 
I say this with a little bit of a sense of history of what 
happened in the last administration with the first occupant of 
the position that you're about to move into.
    We'll need to understand clearly what your views are on 
these issues as we move forward. The first is Afghanistan. You 
mentioned that you support the notion of an immediate and 
fairly large-scale increase of the American military into 
Afghanistan. Can you please articulate your view of this 
strategy in military terms, and what the endpoint is, where we 
will see that our mission is complete?
    Ms. Flournoy. That is the question, Senator. What I would 
say is that I think our objective in Afghanistan has to be to 
create a more stable and secure environment that allows longer-
term stabilization, and prevents Afghanistan from returning to 
being a safe haven for terrorism.
    I think job number one, or one of the top jobs for this new 
administration, is going to be crafting the strategy that 
you're asking for. In doing so, not just for the military 
piece, and how many troops we're going to deploy, but for the 
U.S. Government as a whole, working with our North Atlantic 
Treaty Organization (NATO) allies, working with the Afghan 
Government, working with international donors. We need a 
comprehensive strategy that articulates the end-state we're 
trying to achieve, and then bring all of the elements of 
national power--not just the military--to bear on trying to 
achieve it.
    I can't tell you what that strategy is, yet. But I do know 
that President-elect Obama and Secretary Gates have both been 
very clear that they're committed to developing that as an 
early priority going forward.
    Senator Webb. I would hope that in this process, we can end 
up with a clearly articulated end-point. I think that was the 
great failure in Iraq. If you cannot clearly articulate when 
the commitment will be ended, then we tend to move sort of in 
an ad hoc way, based on the situation of the moment, and all 
around the world, we tend to end up staying in different 
places, and not necessarily resolving problems in a way that 
fits our national interest.
    My second question regards NATO expansion. I spent a good 
bit of time working in NATO, when I was Assistant Secretary of 
Defense. This is not the NATO that I was working with in the 
1980s. In my view, NATO was kind of broken down into three 
pieces. This is my concern, anyway, and I would like to hear 
you views on this.
    We have the United States having moved into position--even 
more so than in the 1980s--of being the military guarantor. We 
have the traditional countries of NATO moving into their 
historic relationships with Central and Eastern Europe--there's 
nothing wrong with that, it's to be expected, and it's healthy 
for Germany, particularly--and then we have, in my view, picked 
up a worrisome set of dependencies, for lack of a better term. 
Not allies, in the traditional sense of the word. What do you 
think about that? What do you think about the further expansion 
that's on the table?
    Ms. Flournoy. Senator, I think this is one of those issues 
where the upcoming NATO summit's going to offer a great 
opportunity to sort of elevate the discussion between the 
United States and our allies, on what is the alliance and what 
is our purpose, here?
    I think that NATO expansion originally started out as being 
very much about creating a Europe that's whole and free. I 
think that's still a worthwhile objective. But, I think going 
forward, there's a sense of, we need to have some clear 
criteria for membership, and also evaluate it on a case-by-case 
basis.
    I'm not prepared to go country-by-country and give you that 
evaluation from where I sit now, given that I haven't been 
deeply involved in these issues for awhile. But I do think that 
the question you're raising of the purpose and nature of 
expansion going forward is important to inform case-by-case 
judgments going forward on which additional members would make 
sense, and which would not.
    Senator Webb. Obviously, stability is one issue. But being 
mandatorily committed to coming to the defense of a country 
that has been allowed into the NATO alliance, as in the 
situation last year with Georgia--is very troublesome. Europe 
has a very tangled history when it comes to this, if you go 
back and examine the period leading up to World War I. There's 
a lot of resonance in terms of the tangled commitments that 
were made. I would hope that we could proceed forward in a very 
careful way, in terms of making any more mandatory obligations 
as to where our military would be used.
    I thank all of you for your time today, and I wish you the 
best, and I obviously am going to support your nominations, and 
I look forward to working with you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    I have a number of additional questions that I want to ask 
right now, but I want to join my voice with that of Senator 
Webb on the NATO expansion issue, the caution that is 
essential.
    For the reason that he gives, which is the requirement that 
we come to the assistance of all members, but also because of 
the veto that every member has on any military activity--it's a 
very serious matter. There's no easy way to address it. We've 
gone into this in prior years, as to whether that ought to be 
modified in some way. But it's really important that any member 
meet all of the requirements of NATO, to reduce the likelihood 
that there will be such a veto, if all but one member of NATO 
wants to take action, and one member refuses--that's it.
    But there's also, of course, the issue that Senator Webb 
raises, about the requirement of using military action to come 
to the support of any nation that feels it's been attacked. The 
complication and complexity of that kind of a decision, it 
seems to me, was highlighted by the recent activity of Russia 
and Georgia.
    I want to add my voice to the caution that Senator Webb, I 
believe, expressed on that.
    With the time remaining--we have votes in 10 minutes, and 
even if I'm alone here, I have more than 10 minutes of 
questions. But let me start off, first, on Iraq. You have 
addressed, Ms. Flournoy, one aspect of the Iraq issue, and the 
difficulty of knowing what the facts will look like down the 
line, in terms of what our future commitments, if any, ought to 
be to Iraq.
    But one of the issues, of course, would be whether or not 
the Iraqi people ratify the SOFA. What happens if public 
opinion comes out in opposition to the referendum? I would just 
ask you whether you agree that would also be a fact, which 
complicating complexity, which would need to be thrown into the 
mix here?
    Ms. Flournoy. Absolutely, Senator.
    Chairman Levin. On Afghanistan, and I think all of us have 
a lot of questions relative to Afghanistan, and some have 
already been asked, but here are a few additional ones.
    I have believed for a long time that the Afghan National 
Army ought to be placed in the position where it's most needed. 
Where it's most needed is where the greatest threat is, and the 
greatest threat is along the border. Yet, we don't see--as far 
as I can tell--the Afghan Army being located along that border.
    On top of that, there was a commitment made to President 
Bush that the Afghan Border Police would be put under the 
jurisdiction of DOD. The Afghan Army is an army that is very 
highly motivated, highly professional. Their fierce dislike of 
the Taliban comes from a long history, and they have the 
willpower to take on that issue along the border. There's a 
contrast there with the Border Police, and I won't go into too 
many details, but the Border Police does not have that kind of 
professionalism, or willpower.
    I'm just asking you and urging you to look into the 
question, Ms. Flournoy, of the location of the Afghan Army, 
whether we should ask the Afghans to locate more of their army 
along the border. That border is a threat, not only to 
Afghanistan, but the areas in Pakistan which harbor the 
terrorists, Taliban leaders, and extremists are a threat 
directly to this country.
    I would ask you to take on, as one of your early policy 
issues, the question of not just the border, which is obviously 
high-up on your radar already, but the question, specifically, 
of the Afghan Army, where we should urge that it be located, 
whether the Border Police should be part of the Ministry of 
Defense, or the Ministry of Interior--and there's a huge 
different in Afghanistan, in terms of the professionalism of 
those ministries.
    Whether, indeed, a commitment was made to President Bush, 
relative to that Border Police. Whether that commitment's been 
kept, because those cross-border incursions from Pakistan, 
again, not only represent a huge threat to Afghanistan, but the 
presence of that safe haven in Pakistan, I know, is now 
allegedly being addressed more by the Pakistanis, and that's 
great.
    But I have my skepticism as to whether their heart is 
totally in it, and whether or not they're going to succeed, and 
that means that either if the Pakistan heart is not in it, 
whether there's any ambiguity there, or whether they're 
unsuccessful even with the willpower, puts a great onus on the 
Afghans to control their own border, and to stop that 
incursion.
    I would ask you, and to the extent you're going to be 
interested and involved--I know you're interested, Mr. Lynn, 
but involved in this issue--I would ask both of you to put some 
real specific focus on those issues, would you do that?
    Mr. Lynn. Absolutely, Mr. Chairman.
    Ms. Flournoy. Absolutely.
    Chairman Levin. Missile defense, I think Senator Begich 
asked one part of that question, but I come at it from a 
similar angle, I think to the one that was discussed by Mr. 
Lynn. Let me just ask this question of you, Mr. Lynn. Do you 
agree that the Missile Defense Agency, and the missile defense 
programs of the Department, should be subject to regular 
processes for budgetary, acquisition, testing, and policy 
oversight, rather than being managed outside of ordinary 
management channels?
    Mr. Lynn. Mr. Chairman, I think that all of our military 
programs should be managed through those regular programs, that 
would include missile defense. I would think any exceptions 
should be rare, and fully justified.
    Chairman Levin. Thank you.
    Ms. Flournoy, on the European missile defense issue--do you 
believe it would be important to review the proposed European 
missile defense deployment in the broader security context of 
Europe, including our relations with Russia, the Middle East, 
and to consider that deployment, as part of a larger 
consideration of ways in which to enhance ours and European 
security?
    Ms. Flournoy. Yes, I do, sir. I think it's an important 
candidate issue for the upcoming QDR.
    Chairman Levin. Thank you.
    Mr. Lynn, the Air Force and the Navy have been reducing 
their end strengths in recent years, but have announced that 
they are halting the reductions, short of previously stated 
goals. Can you give us your thoughts on the current size of the 
Active Force, both the Air Force and Navy size, but also the 
Army and Marine Corps who have been steadily increasing under 
the requirements established by this Congress, that have pushed 
very hard for increases in the size of the Army and Marines? 
But comment, if you will, specifically on the stated goals of 
the Air Force and the Navy, and whether they should be kept, or 
whether they ought to be modified?
    Mr. Lynn. Mr. Chairman, I think that's going to be a 
central part of the review in the next QDR. I think any 
strategic review has to include within it a thorough review of 
the force structure, because it's the first element in terms of 
how we address the threat, is the force structure that we 
develop. Most of the budget implications, at least the initial 
budget implications, flow from those judgments. So, we need to 
start with those judgments. But, I couldn't pre-judge at this 
point, the results.
    Chairman Levin. That's fine.
    Over the past 2 years, we've spend a huge amount of time 
working with DOD and the Department of Veterans Affairs (VA) to 
improve the care and treatment of our wounded warriors. We've 
adopted Wounded Warrior legislation which was comprehensive, to 
try to address some of the problems which were very visible and 
dramatically disclosed by the Washington Post series of 
articles that related to Walter Reed Army Medical Center. But 
it was a much deeper problem that we addressed, in terms of the 
relationship between the Departments--DOD and the VA--to try to 
make sure there were seamless transition, that there were 
common standards and criteria for assessments, including 
disability ratings, and we made some major reforms in that 
area.
    Mr. Lynn, if confirmed, will you ensure that the Department 
continues to work with the VA to make sure that the wounded 
servicemembers and their families receive the treatment that 
they need and deserve? Will you assure us that this issue is 
going to remain at a high visibility level in the Department 
throughout the period of transition, and beyond?
    Mr. Lynn. Absolutely, Mr. Chairman.
    Chairman Levin. Let me address this question to both of 
you, Mr. Lynn, Ms. Flournoy, about U.S.-Russia relations, and 
what steps you believe should be taken to improve the 
relationship in the near-term, mid-term, and long-term. What 
issues face the Department now, which can affect that U.S.-
Russia relationship, and how important is it that we try to 
improve that relationship?
    Why don't you start, Mr. Lynn, and then I'll go to Ms. 
Flournoy.
    Mr. Lynn. Mr. Chairman, the Russians still have the largest 
nuclear arsenal, and in that context alone, we need to pay 
attention to that critical relationship. We need to develop 
that relationship as far as we can, we have a Strategic Arms 
Reduction Treaty renewal to evaluate, as to whether that's the 
right way forward. We have ongoing relationships in terms of 
the Nunn-Lugar program. That's an important way that we've been 
able to reduce the threat of the proliferation of those nuclear 
weapons.
    At the end of the day, Mr. Chairman, this is one of the 
most critical relationships, both for defense and foreign 
policy reasons, that the Nation has.
    Chairman Levin. Ms. Flournoy?
    Ms. Flournoy. Some of our most vital interests--preventing 
further nuclear proliferation, preventing the use of nuclear 
weapons by terrorists--it's very difficult for the United 
States to safeguard those interests without very deep, and 
broad, international cooperation. When you look at the nature 
of some of the tasks, getting Russia to help police nuclear 
materials, ensure the safety of nuclear weapons arsenals, and 
so forth, they're a very critical partner in that regard.
    I guess I would start from the premise that we do have some 
very important common interests, and although recent Russian 
behavior--particularly with regard to Georgia, with regard to 
energy supplies in Europe and so forth, have been great cause 
for concern.
    I would hope that going forward, the new administration 
would reopen a strategic dialogue with Russia that would seek 
to identify areas--both of cooperation, and areas where we 
would like to see more constructive behavior, from Russia, 
going forward. But, I think it's an absolutely critical 
relationship that we need to be working actively, going 
forward.
    Chairman Levin. Ms. Flournoy, the Chairman of the Joint 
Chiefs recently spoke about the need for a whole of government 
approach, and the limits of the use of military power as a tool 
of U.S. foreign policy. Admiral Mullin stated that our Armed 
Forces ought to be willing to say when it believes that the 
military is not the best choice to take the lead, in place of 
our civilian department, and agencies of government. He 
emphasized the need to provide our civilian departments--
including State Department, U.S. Agency for International 
Development, Agriculture, and Justice, with the resource that 
they need to take the lead, even if that means less resources 
for DOD. I'm wondering whether you agree with that? I think 
Secretary Gates has spoken, even before Chairman Mullin, very 
eloquently about these issues. I'm wondering whether or not you 
basically agree with that?
    Ms. Flournoy. I do agree, sir. Both in the need for much 
more integrated approaches using all of the elements of 
national power to achieve objectives, but also in the need to 
invest in building capacity of our non-military instruments, to 
be able to perform alongside our military.
    Chairman Levin. All right, thank you.
    Mr. Lynn and Ms. Flournoy, the recovery operations in North 
Korea for American prisoners of war who have been missing in 
action since the Korean War is an important humanitarian 
effort, and it should not be caught up, or tied to the 
political and strategic issues surrounding North Korea.
    Since the inception of the bilateral operations in 1996 in 
North Korea, until their untimely suspension by Secretary 
Rumsfeld in 2005, this program was seen by both parties as a 
humanitarian program. It's incredibly important to the families 
of those missing servicemembers that their remains be 
recovered.
    Will you seek to resume those operations in cooperation 
with the North Koreans, Mr. Lynn?
    Mr. Lynn. Mr. Chairman, I'm going to have to become more 
familiar with that program, but I'll endeavor to do that, as a 
high priority.
    Chairman Levin. Thank you.
    Ms. Flournoy, are you familiar with that program?
    Ms. Flournoy. I'm aware that it was stopped, but I am not 
too familiar with the details, but I'd be happy to look into 
it, sir.
    Chairman Levin. Thank you.
    Mr. Johnson, the convening authority for military 
commissions for DOD was quoted yesterday as saying that she 
declined to refer a detainee case for prosecution, because 
``his treatment was torture.'' She said it was abuse of an 
uncalled for and clearly coercive nature, to use her words. 
Now, assuming that Ms. Crawford's statements are accurate, 
would you agree that these interrogation techniques are 
inconsistent with Common Article III of the Geneva Conventions, 
the requirements of the Army Field Manual, and should not be 
used by DOD?
    Mr. Johnson. Yes, Mr. Chairman, I believe that and I also 
believe that such things are inconsistent with American values.
    Chairman Levin. Mr. Lynn and Ms. Flournoy, would you agree 
with that?
    Mr. Lynn. I certainly agree that our interrogation 
techniques need to follow the Geneva Conventions and the Army 
Field Manual.
    Chairman Levin. Ms. Flournoy, would you agree?
    Ms. Flournoy. I would agree with Mr. Lynn's statement.
    Chairman Levin. With Mr. Johnson's statement?
    Ms. Flournoy. Yes. I believe that torture should never be 
used by the United States, under any circumstances.
    Chairman Levin. But, would you agree that the description 
which she gave met the legal definition of torture? Or are you 
not in a position to----
    Ms. Flournoy. Sir, I am not in a position, I am not 
familiar with that particular case, I'm sorry.
    Chairman Levin. All right.
    Mr. Johnson, according to an article in yesterday's 
Washington Post, the evidence against detainees at Guantanamo 
Bay is ``in a state of disarray.'' Apparently, so chaotic that 
it's impossible to prepare for a fair criminal trial. If 
confirmed, would you personally review the evidence against the 
Guantanamo detainees, for the purpose of determining--in 
consultation with other appropriate administration officials--
how to proceed with those cases?
    Mr. Johnson. If confirmed, Mr. Chairman, I anticipate being 
part of an inter-agency review with respect to the manner in 
which such cases are brought, and to take a good look at the 
evidence against the detainees--both with respect to potential 
criminal prosecutions, and their continued detention, yes, sir.
    Chairman Levin. Do you have a view as to whether or not 
it's preferable or appropriate to try detainees who are going 
to be charged with criminal offenses before military 
commissions, rather than Article III courts?
    Mr. Johnson. Senator, first of all, I have predispositions. 
I don't, at this point, have an informed view. If confirmed, 
I'd want to get in there and learn a lot more about this 
subject, and learn about the nature of the evidence that we 
have on some of these detainees, so I think I know what I don't 
know.
    But I do have some predispositions on this subject, which I 
think are similar to the President-elect's. I think that it is 
preferable that we proceed in Article III civilian courts. I do 
not rule out the possibility and the need for prosecutions in 
some form of Uniformed Code of Military Justice court-martial 
or a properly constituted military commission. Military 
commissions have existed since before World War II. I have some 
qualms and some issues with how they are currently constituted, 
and I think the new administration will take a serious look at 
that.
    But I think that, if I could add this--we need to also be 
mindful of the future, not just the 250 or so detainees at 
Guantanamo. We are certainly going to have detainees in the 
future, so we need to build a system that has credibility and 
survives legal scrutiny for the future as well as the people 
that are currently there.
    Chairman Levin. In that review, I would recommend that you 
take a look at the debates and decision of this committee and 
Congress, relative to those procedures. There was some 
reference to that by Senator Graham, and I would urge you to 
take a look at the decisions, the debates, the issues which we 
confronted, and ultimately divided on. But, for a time, we 
thought, at least a pretty good majority--bipartisan majority--
to put in place.
    If you would just take a look at that history, that, I 
think, will inform some of your thinking as to what direction 
we need to go in this area.
    Mr. Johnson. Thank you.
    Chairman Levin. Can you do that?
    Mr. Johnson. Yes, sir.
    Chairman Levin. On access to documents, Mr. Johnson, the 
Senate Armed Services Committee has conducted an extensive 
investigation into the treatment of detainees in U.S. custody. 
For a long period of time, at least, that investigation was 
impeded by objections from the Department of Defense, and 
particularly by the Office of the General Counsel, to providing 
requested documents and information to the committee.
    There were a number of excuses that were provided to us, 
for why documents and information were withheld, including 
claims that the communications were ``deliberative'' or that 
advice was ``pre-decisional,'' or other privileges. None of 
those privileges, and a number of others that were asserted, 
were recognized, or ever have been recognized, by Congress or 
the Courts as a basis for withholding documents from Congress.
    The objections that the Department raised delayed our 
investigation and report. I would ask you this--whether you 
would agree that a good working relationship between the 
Department and the committees of Congress is in the interest of 
everybody? It's important for the Department to cooperate to 
the maximum extent practical with requests for documents and 
information made in the performance of our oversight function.
    Mr. Johnson. Mr. Chairman, I do and I will undertake this 
if any member of the committee or your committee staff believes 
that DOD has asserted an objection that does not have a basis 
in law, I want to know about that right away.
    Chairman Levin. Okay.
    Mr. Johnson. I'd appreciate a phone call directly to me.
    Chairman Levin. That's great. After you're confirmed, we'll 
not only make certain that that happens in the future, and 
hopefully is not needed, but we're going to ask you to take a 
look at some of the documents that are denied us, the reasons 
for them, and to see whether or not you are able to make them 
available, based on prior requests.
    Mr. Johnson. Yes.
    Chairman Levin. Okay.
    The President-elect has made a very strong commitment to 
openness and transparency in government and you're going to be 
right in the center of that when it comes to oversight, and 
your decisions will be important in that regard, and we welcome 
your commitment to that kind of openness and transparency.
    Mr. Lynn, President-elect Obama said that it's possible for 
us to keep the American people safe, while adhering to our core 
values and ideals, and that's what he intends to carry forward 
in the new administration. Would you agree that restoring 
America's moral leadership globally is essential to our 
security?
    Mr. Lynn. Yes, sir.
    Chairman Levin. Will you agree that sending the clear 
signal that the United States does not engage in torture, or 
cruel, inhumane or degrading treatment, which are prohibited by 
our anti-torture laws, that that clear signal will enhance our 
standing globally, and enhance our security?
    Mr. Lynn. I do.
    Chairman Levin. Finally, I don't want to leave you too much 
off the hook, Mr. Hale, because you're----
    Mr. Hale. That's quite all right, Mr. Chairman.
    Chairman Levin. I know your family and you would be 
disappointed if that were true, so let me ask you this. Our 
current defense plans and programs are extremely expensive. You 
have a huge budget deficit. What we're going to need you to do 
is to work, obviously, with the leadership of the Department to 
work with us to find places where we can save money. We know 
where we have to spend money. We're going to spend money to 
support our men and women in uniform, to give them everything 
they need to prevail on their missions, and we're going to give 
our military families the support that they deserve. We're 
going to provide the equipment that's essential, and the 
healthcare that's essential.
    What we cannot do is spend money either on systems we don't 
need, or excesses that we've seen too much of.
    I think you're familiar, are you, with some of the 
Inspector General's reports on expenditures in Iraq?
    Mr. Hale. Yes, in general terms.
    Chairman Levin. We're talking tens of billions, maybe 
hundreds of billions of unaccounted for dollars. So we're going 
to need your energy to not just help us reform business 
systems, which we need to do, and we need all your help, I 
guess, in the area of reforming acquisition. I know a number 
one priority, or one of the top priorities I guess, not quite 
number one, but one of the top priorities of the new 
administration is acquisition reform.
    But you're going to be in a key position, Mr. Hale, we're 
going to need your full energy and your passion in this area if 
we're going to succeed.
    We have a vote on, now, in the Senate, and you've been here 
a long time.
    Ms. Flournoy, I particularly want to compliment your 
children.
    Ms. Flournoy. Thank you, aren't they wonderful?
    Chairman Levin. They're great. I want to compliment all of 
you for your answers, and for your commitments in working with 
this committee.
    But I really want to embarrass your children, Ms. Flournoy, 
because of all of the people here this morning, I think they've 
been the most outstanding. [Laughter.]
    With that, again, we will move these nominations as quickly 
as we can. There are some things that have to be given to this 
committee which are not yet available to this committee. We 
expect they'll be fully routine, but nonetheless, they have to 
be provided. We're just going to bring your nominations as 
quickly to fruition as we can in terms of confirmation.
    With that, we congratulate you, we thank you for your 
service, and again, thank your families. We thank all of the 
families and friends who have shown up here today in support of 
these nominees, and we will stand adjourned.
    [Whereupon, at 12:24 p.m., the committee adjourned.]

    [Prepared questions submitted to William J. Lynn III by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. As the executive director of the Defense Organization 
Project at the Center for Strategic and International Studies, I was 
involved in developing the analytical work that served as a foundation 
for the eventual Goldwater-Nichols Act. I believe that Act has yielded 
enormous benefits to the Department through strengthened joint 
operational commanders, better joint advice in the Pentagon, and 
improved acquisition management structures. At this time, I do not see 
the need for any specific changes. If confirmed, my subsequent 
experience in the Deputy Secretary of Defense position could 
potentially suggest needed changes and I would consult with Congress on 
any such issues.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I believe the Department's acquisition management processes 
and organizations should be a high priority for review by the new 
administration with the objective of improving the cost controls and 
responsiveness of that system. That review could potentially suggest 
changes to certain aspects of Goldwater-Nichols. I also believe it will 
be important to address recommendations for interagency reform.
                             relationships
    Question. What is your understanding of the relationship between 
the Deputy Secretary of Defense and each of the following:
    The Secretary of Defense.
    Answer. I expect the Deputy to be able to perform any of the duties 
of the Secretary, but to be largely focused on the daily operations of 
the Department. The Secretary and the Deputy would work together to 
develop defense strategy and policy, but the Deputy would serve largely 
as the Department's Chief Operating Officer, responsible for the 
operation of DOD and implementation of national defense policy and 
strategy. This will include financial management, personnel policies, 
acquisition management and integrity, oversight of military 
departments' roles, base realignment and closure (BRAC), Quadrennial 
Defense Review (QDR) management, legislative affairs, public affairs 
and the like.
    Question. The Under Secretaries of Defense.
    Answer. If confirmed, my role as Chief Operating Officer would be 
to ensure collaboration across the various offices of the Under 
Secretaries of Defense. I would further provide that the Secretary's 
guidance and priorities are understood and implemented, and that 
matters requiring the Secretary's attention are raised to his level.
    Question. The Deputy Chief Management Officer (DCMO) of DOD.
    Answer. As a direct reporting relationship, the DCMO would provide 
feedback on the progress of the Department toward achieving its 
management goals. The DCMO would also work closely with me, if 
confirmed, to determine future changes to our strategic plan. The DCMO 
would routinely interact with the Military Department Chief Management 
Officers (CMOs) to ensure success.
    Question. The Assistant Secretaries of Defense (ASD).
    Answer. If confirmed, for direct reporting ASDs the relationship 
would be the same as with the Under Secretaries. For those reporting to 
an Under Secretary, I would rely primarily on that Under Secretary to 
manage each area.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. The Chairman is the principal advisor to the President and 
National Security Council. If confirmed, I will work closely to 
coordinate any issues with the Chairman and Vice Chairman.
    Question. The Secretaries of the Military Departments.
    Answer. If confirmed, I will work closely with the Secretaries of 
the Military Departments to ensure that the policies of the President 
and the Secretary of Defense are carried out in their respective 
military departments.
    Question. The Chief Management Officers of the Military 
Departments.
    Answer. If confirmed, one of my most important duties would be to 
ensure that the Department can carry out its strategic plan. 
Interactions with the military department CMOs would largely be through 
the DCMO. This would allow for monitoring and measuring of the 
Department's progress by establishing performance goals and measures 
for improvement.
    Question. The Service Acquisition Executives.
    Answer. If confirmed, I will be actively involved in setting 
acquisition policy. However, I would expect most policy coordination to 
occur through the USD(AT&L). My objective would be to ensure 
acquisition policy, procedures, and regulations are followed and 
appropriate improvements pursued.
    Question. The Chiefs of Staff of the Services.
    Answer. If confirmed, I will work to ensure the Service Chiefs are 
aware of the Secretary's guidance and their concerns are coordinated 
with the Secretary.
    Question. The Director of National Intelligence (DNI).
    Answer. If confirmed, I would, together with the Secretary of 
Defense, routinely interact with the DNI. More detailed coordination 
will occur between the DNI's staff and the USD(I).
    Question. The Inspector General of DOD.
    Answer. If confirmed, I would encourage the Inspector General to 
carry out his/her duties in accordance with the Inspector General Act 
while ensuring there are no barriers to independence or mission 
accomplishment.
    Question. The General Counsel of DOD.
    Answer. If confirmed, I will seek advice from the General Counsel 
on all relevant subjects.
    Question. The Chief of the National Guard Bureau.
    Answer. If confirmed, I will work closely with the Chief of the 
National Guard Bureau to understand all Guard-related issues and to 
ensure he understands the Secretary's guidance.
    Question. The Judge Advocates General of the Services.
    Answer. The Services' Judge Advocates General have important roles 
in their respective Services. However, the majority of Service Judge 
Advocate General issues would be coordinated through the Office of the 
General Counsel.
               duties of the deputy secretary of defense
    Question. Section 132 of title 10, U.S.C., provides that the duties 
of the Deputy Secretary of Defense are to be prescribed by the 
Secretary of Defense.
    Assuming that you are confirmed, what duties do you expect the 
Secretary to prescribe for you?
    Answer. If confirmed, I expect to function as a traditional deputy, 
serving as the alter ego to the Secretary of Defense in a variety of 
forums. However, I expect the Secretary would continue to focus 
primarily on external aspects of the Defense Department, while I would 
focus on the internal management functions of the Department, similar 
to that of a Chief Operating Officer. Those functions would most likely 
be particularly focused on the Department's planning, budgeting, 
acquisition, personnel, and management activities.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties?
    Answer. My background includes service in two previous civilian 
positions in the Defense Department, more recent experience in defense 
industry, and previous work in support of Congress. I believe these 
three bodies of experience will provide a solid foundation for 
performing the duties of the Deputy Secretary of Defense, if confirmed. 
I served as the Under Secretary of Defense (Comptroller) from 1997 to 
2001. In that position, I was the chief financial officer for DOD and 
the principal advisor to the Secretary of Defense for all budgetary and 
fiscal matters. From 1993 to 1997, I was the Director of Program 
Analysis and Evaluation (PA&E) in the Office of the Secretary of 
Defense, where I oversaw the Defense Department's strategic planning 
process. I currently serve as senior vice president of Government 
Operations and Strategy at Raytheon Company, leading the company's 
strategic planning. Before entering DOD in 1993, I served for 6 years 
on the staff of Senator Edward Kennedy as liaison to the Senate Armed 
Services Committee. Earlier in my career, I worked as a Senior Fellow 
at the National Defense University and on the professional staff at the 
Institute for Defense Analyses, and served as the executive director of 
the Defense Organization Project at the Center for Strategic and 
International Studies. Although I believe my background provides a 
solid foundation for the position, I also recognize that the job of 
Deputy Secretary of Defense encompasses a very diverse set of 
challenges and responsibilities, and I also know that the Defense 
Department and its programs have undergone significant changes in the 8 
years since I left government service. So I have much to learn and my 
success in fulfilling the duties of the position will be dependent on 
the knowledge and advice of the civilian experts and military 
servicemembers in the Department.
    Question. Do you believe there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Secretary of 
Defense?
    Answer. The Defense Department has experienced profound changes 
over the 8 years since I left government service in 2001. If confirmed, 
I will need to receive extensive information and advice from the 
civilian and military professionals in the Department on recent 
developments on operations, defense programs, and organizational and 
process changes. I believe it is important to establish strong working 
relationships with the senior leaders in the Joint Staff and the 
military departments and to establish an atmosphere of open 
communications so that I can assist the Secretary with the benefit of 
the best information and advice available for decisionmaking. I also 
look forward to the opportunity to spend time with Deputy Secretary 
England and previous incumbents of the office to receive the benefit of 
their experience and wisdom.
    Question. What changes to section 132, if any, would you recommend?
    Answer. Based on my previous experience in the Department, I 
believe the statutory authorities for the Office of the Secretary of 
Defense are appropriate for the effective performance of the assigned 
duties. So at this time, I have no changes to recommend, though, if 
confirmed, my view could change at a later date based on experience in 
the position.
    Question. Section 132 was amended by section 904 of the National 
Defense Authorization Act for Fiscal Year 2008, to provide that the 
Deputy Secretary serves as the Chief Management Officer (CMO) of DOD. 
The Deputy Secretary is to be assisted in this capacity by a DCMO.
    What is your understanding of the duties and responsibilities of 
the Deputy Secretary in his capacity as CMO of DOD?
    Answer. If confirmed, my most important duty as DOD CMO will be to 
ensure that the Department can carry out its strategic plan. To do 
this, I will ensure the Department's core business missions are 
optimally aligned to support the Department's warfighting mission. I 
will develop and maintain a strategic management plan for business 
reform, and will monitor and measure the Department's progress by 
establishing performance goals and measures for improving and 
evaluating overall economy, efficiency, and effectiveness of the 
Department's business operations.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. My previous service as Under Secretary of Defense 
(Comptroller) included major responsibilities for the oversight and 
improvement of the Department's financial management processes and 
organizations, and I devoted considerable time and attention to those 
aspects of my responsibilities. Although the responsibilities of the 
Deputy Secretary are far broader, I believe my experience as 
Comptroller provides a strong foundation for the CMO duties. In 
addition, as Director of the Office of PA&E, I was responsible for the 
Department's strategic planning. My experience in that area has also 
been broadened over the past 6 years through my experience with 
industry strategic planning.
    Question. Do you believe that the CMO and DCMO have the resources 
and authority needed to carry out the business transformation of the 
DOD?
    Answer. My understanding is that an office has been established and 
funded, and a career senior executive civilian has been appointed as 
Assistant DCMO to provide continuity in overseeing business 
transformation initiatives. The DCMO has been added to the membership 
of all of the Department's senior decision boards, and the DCMO has 
been named as vice-chair of the Defense Business Systems Management 
Committee (DBSMC). The charter of the Business Transformation Agency 
(BTA) has been amended so that the Director of BTA reports directly to 
the DCMO. Finally, the military departments have established CMO 
organizations, which will oversee newly established Business 
Transformation Offices. This provides a framework for ensuring 
integrated information sharing and collaborative decisionmaking across 
the Department. These organizational changes occurred after I left 
government service, so, if confirmed, I will need to review their 
effectiveness and determine, in consultation with the DCMO, whether any 
additional authorities or resources are appropriate.
    Question. What role do you believe the DCMO of DOD should play in 
the planning, development, and implementation of specific business 
systems by the military departments?
    Answer. I expect the DCMO will provide integrating guidance and 
liaison with the Director of the BTA and the CMOs of the military 
departments. The DCMO will also work to resolve policy impediments to 
implementing cross-functional solutions across the Department.
    Question. Do you believe that the DCMO should have clearly defined 
decisionmaking authorities, or should the DCMO serve exclusively as an 
advisor to the Deputy Secretary in his capacity as CMO?
    Answer. The DCMO is a new position that did not exist during my 
tenure in the Department, and the position has not yet been filled and 
fully implemented. I believe some time will be needed to review the 
Department's experience with the operation of the new position in order 
to determine the precise authorities and relationship to the Deputy 
Secretary.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the positions of CMO and DCMO?
    Answer. I would defer any recommendations regarding potential 
changes to statutory provisions pending experience with the new 
position and time to review its operation within the Department.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Deputy Secretary of Defense?
    Answer. See below.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. There are an enormous number of challenges facing DOD 
today, and the next Deputy Secretary will have the responsibility to 
assist the Secretary of Defense in addressing a large number of 
critical tasks. If confirmed for this important position, I would focus 
on three initial challenges. First, during a transition in a time of 
war, it is essential that the Department executes a smooth transition 
of the leadership as quickly as possible. To that end, I would work 
with the Secretary and Congress to assemble a top-quality cadre of 
civilian leaders with the expertise and experience to effectively 
perform the duties of the key positions that must be filled. As part of 
that effort, I would also place a high priority on strengthening the 
capabilities of the career staff, which is essential to address the 
many near-term tasks facing the Department as well as the longer-term 
challenges. A second challenge will be to conduct at least three sets 
of major program and budget reviews in the first few months of the new 
administration. These include review of the second fiscal year 2009 
supplemental appropriation submission, revisions to the draft fiscal 
year 2010 budget and its timely submission to Congress, and the 
expeditious completion of the QDR and the associated formulation of a 
defense strategy and the fiscal year 2011 defense program and budget. 
In the QDR, I believe a key task will be to lay the foundation for an 
effective force for the 21st century and to establish the right balance 
among capabilities for addressing irregular warfare and 
counterinsurgent operations, potential longer-term threats from a high-
end or near-peer competitor, and proliferation threats from rogue 
states or terrorist organizations. A third major challenge will be to 
pursue an active reform agenda for the management of the Department. In 
particular, if confirmed, I would devote a considerable portion of my 
time and energies to efforts to improve the Department's processes for 
strategic planning, program and budget development, and acquisition 
oversight. Improving the Department's record on cost control, and the 
credibility of its budget and cost forecasts, would be a priority 
objective for those efforts.
                               priorities
    Question. What broad priorities would you establish, if confirmed, 
with respect to issues which must be addressed by DOD?
    Answer. My first priority, if confirmed, would be to work with 
Secretary Gates to provide the resources needed to support our forces 
currently engaged in operations in Iraq, Afghanistan, and other parts 
of the world. That includes meeting the military end strength goals 
needed to support those operations while easing the deployment burdens 
on our servicemembers and their families. It also includes ensuring the 
effectiveness of the programs needed to support the readiness and 
quality of life of those forces and the equipment they need to operate 
effectively with adequate protection. While I believe the needs of the 
current operations must be the highest priority, the Department's 
leaders must also address the longer-term recapitalization and 
modernization needs of the force. To that end, another key priority, if 
confirmed, would be to provide strong leadership and management of the 
QDR and the various program and budget formulation efforts that will be 
needed over the next few months. The priorities in those efforts would 
be to oversee the development of an integrated strategy, program, and 
budget for meeting the challenges of the 21st century. Meeting the 
recapitalization and modernization needs of the forces will also 
require acquisition programs and processes that deliver effective 
equipment in a timely manner and within cost targets so that the 
Department can sustain the confidence of Congress and the taxpayers 
that public funds are being used effectively.
              fiscal year 2010 president's budget request
    Question. What role do you expect to play, if confirmed, in the 
development of the President's budget request for DOD for fiscal year 
2010?
    Answer. If confirmed, I would expect to oversee the development of 
the fiscal year 2010 budget request, working with Secretary Gates to 
ensure that it reflects his strategic vision. I would work with the 
Office of Management and Budget (OMB) to shape the Department's fiscal 
year 2010 fiscal controls in a way that allows the Department to 
achieve the Nation's national security goals.
    Question. What steps do you expect the incoming administration to 
take to formally review the Department's 2010 budget request and, as 
necessary, make those changes required to ensure that the budget 
request fully conforms with the policies of the incoming administration 
and the needs of DOD?
    Answer. My understanding is that the Department has prepared a 
draft fiscal year 2010 budget baseline that is ready for review by the 
new administration. Although that budget will eventually be submitted 
by President Obama, there will be only a limited amount of time for DOD 
and OMB to make revisions prior to submission to Congress in the late-
March to mid-April timeframe. This is a problem common to all new 
administrations. The review of the fiscal year 2010 budget request 
will, of necessity, have to be limited in scope, addressing the key 
initiatives of the new administration such as ground forces end 
strength, quality of life programs, and selected acquisition programs. 
A broader review would be conducted as part of the QDR and the 
associated formulation of the fiscal year 2011 defense program and 
budget.
    Question. What steps do you believe need to be taken to ensure an 
appropriate level of investment in the future force in the face of 
pressing requirements for completing the mission in Iraq and 
Afghanistan, for resetting of the force, and for meeting ongoing 
operational commitments across the globe?
    Answer. If confirmed, I will vigorously review the Department's 
resources requirements and work to ensure that any budget request 
provides sufficient resources to achieve the appropriate level of 
investment in the future force to meet the Nation's national security 
needs.
    Question. In the John Warner National Defense Authorization Act for 
Fiscal Year 2007, section 1008, Congress required that the President's 
annual budget submitted to Congress after fiscal year 2007 include a 
request for the funds for ongoing operations in Iraq and Afghanistan 
and an estimate of all funds expected to be required in that fiscal 
year for such operations.
    What problems, if any, do you anticipate the Department will 
encounter in complying with this budgeting requirement?
    Answer. The fiscal year 2009 defense budget passed by Congress last 
year did not include funding for current war operations. In addition, 
the fiscal year 2009 supplemental appropriation enacted by Congress 
last year provided funds for war operations for roughly half of the 
fiscal year. As a result, as Secretary Gates recently indicated, 
substantial additional funds will be needed for the remainder of the 
fiscal year. The draft request prepared by the Department will need to 
be reviewed by the new administration, and it will also need to be 
updated to reflect expanded deployments to Afghanistan. For the fiscal 
year 2010 budget, as indicated above, there will be limited time 
available to review and revise the draft prepared by the current 
administration. A key issue for that review will be the formulation of 
new guidelines for what costs are appropriate for supplemental requests 
and identifying items that should be funded in the base budget. An 
objective should be for the Department to work with Congress to move 
away from dependence on supplementals for predictable items, and any 
supplemental requests should be carefully reviewed against strict and 
consistent criteria and should be provided to Congress early in the 
year with full explanatory information.
    Question. If confirmed, what steps will you take to ensure that the 
Department complies with the requirements of this provision?
    Answer. If confirmed, Secretary Gates and I will work with the 
White House and OMB to comply with the requirements of this provision.
                           management issues
    Question. If confirmed, what key management performance goals would 
you want to accomplish, and what standards or metrics would you use to 
judge whether you have accomplished them?
    Answer. The Department has a long history of using performance 
information to manage. When I last served in the Department, I oversaw 
initial efforts to produce a Department-wide set of performance plans 
and reports under Government Performance and Results Act (GPRA). 
Therefore, I know first-hand the challenges of identifying key 
management performance goals--and for establishing metrics supporting 
those goals that capture results accurately for an entity as varied, 
complex, and large as DOD. I know the Department has a suite of 
established performance goals, standards, and metrics. If confirmed, I 
would need to work with Secretary Gates to align the strategic outcomes 
of the Department to the defense missions assigned to us by the 
President before I would be in a position to select which of these I 
would retain, change, or revise. In general, it is important that the 
Department establish goals that focus on outcomes, not activities or 
programs. Any supporting measures should account for all aspects of 
performance, including but not limited to financial performance and 
savings.
    Question. GPRA is intended to provide managers with a disciplined 
approach--developing a strategic plan, establishing annual goals, 
measuring performance, and reporting on the results--for improving the 
performance and internal management of an organization. The Government 
Accountability Office (GAO) has reported that DOD's initial Strategic 
Management Plan, issued in July 2008, fails to meet statutory 
requirements to address performance goals and key initiatives to meet 
such goals.
    What steps would you take, if confirmed, to ensure that the 
Department meets statutory requirements for a Strategic Management 
Plan?
    Answer. The Department is on record that it will provide 
performance goals and key initiatives in its July 2009 update to the 
Strategic Management Plan. If confirmed, a priority will be to work 
with Secretary Gates to review this plan for any revisions.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes.
    Do you believe that a comprehensive, integrated, enterprise-wide 
architecture and transition plan is essential to the successful 
transformation of DOD's business systems?
    Answer. I believe that a federated enterprise-wide architecture and 
transition plan can contribute significantly to the development of 
business systems and processes.
    Question. What steps would you take, if confirmed, to ensure that 
DOD's enterprise architecture and transition plan meet the requirements 
of section 2222?
    Answer. It is a common challenge throughout government to bring new 
systems on line, while keeping legacy systems in place. Therefore, if 
confirmed, I will ensure that the Department adheres to the necessary 
goals and milestones. I also will work to ensure that architecture 
efforts are synchronized across all the military departments and 
defense agencies.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. There is no question that financial and business 
information is a primary tool in managing operations well and 
establishing a fact trail that holds managers accountable for results. 
The Department is a complex enterprise that requires input from many 
diverse programs and activities to achieve its goals. Therefore, our 
financial and business information should be viewed within the context 
of overall mission performance across the Department.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, I would take steps to make sure that any such 
gaps were filled. However, the Department cannot afford to optimize for 
all information needs. If confirmed, it will be my responsibility to 
set priorities for identifying what kinds of information should be 
routinely available to decisionmakers, and to guide investments in new 
technology and business processes accordingly.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to DOD managers?
    Answer. If confirmed, I will work to develop a refined Defense 
Strategy and Strategic Management Plan. Once our priorities are 
defined, I will ask the Department's senior military and civilian 
leaders to identify key performance goals and measures. This is an 
example of an area where I will rely on the DCMO leadership to guide 
the Department in aligning financial and business information systems 
and initiatives to achieve the goals of the defense strategy.
    Question. The Department has chosen to implement the requirement 
for an enterprise architecture and transition plan through a 
``federated'' approach in which the BTA has developed the top level 
architecture while leaving it to the military departments to fill in 
most of the detail. The Comptroller General has testified that ``the 
latest version of the [business enterprise architecture] continues to 
represent the thin layer of DOD-wide corporate architectural policies, 
capabilities, rules, and standards'' and ``well-defined architectures 
[do] not yet exist for the military departments.''
    If confirmed, would you continue the federated approach to business 
enterprise architecture and transition plan?
    Answer. Yes, this approach has value, as it shares the 
responsibility and accountability for architectural development and 
transition planning at the appropriate level of the Department. This is 
an example of an area where, if confirmed, I will rely on the DCMO and 
the Military Department CMOs to help continue and extend an important 
business transformation initiative to all components of the Department.
    Question. What is your understanding of the extent to which the 
military departments have completed their share of the federated 
architecture and transition plan?
    Answer. My understanding is that each military department is at a 
different place in the development of their component level 
architectures. Accordingly, this is an area that, if I am confirmed, 
will require my review, working through the DCMO.
    Question. If confirmed, how would you work with the Secretaries and 
Chief Management Officers of the military departments to ensure that a 
federated architecture meets the requirements of section 2222 and the 
GAO framework?
    Answer. If confirmed, I will ask the DCMO to work with the Military 
Department CMOs to ensure adherence to the DOD Federated Strategy 
guidance for architecture development and implementation.
                          financial management
    Question. You were the Under Secretary of Defense (Comptroller) 
prior to 2001 and testified before the committee about financial 
management issues in that capacity.
    What is your understanding of the efforts and progress that have 
been made in DOD since 1999 toward the goal of being able to produce a 
clean audit?
    Answer. My understanding is the Department has made significant 
strides toward a clean audit but still has substantial work left to 
achieve the objective. If confirmed, I will ensure that appropriate 
actions are taken to continue progress toward meeting clean audit 
goals.
    Question. Do you believe that the Department can achieve a clean 
audit opinion through better accounting and auditing, or is the 
systematic improvement of the Department's business systems and 
processes a prerequisite?
    Answer. I do not believe the Department's clean opinion goals can 
be met without improvements to its business systems and processes.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. I have not had the opportunity to review the Department's 
current plan for clean audit, including the goals for timing. If 
confirmed, I will review the plan and ensure that appropriate actions 
are taken to make progress toward meeting clean audit goals.
                    acquisition of business systems
    Question. Most of the Department's business transformation programs 
are substantially over budget and behind schedule. In fact, the 
Department has run into unanticipated difficulties with virtually every 
new business system it has tried to field in the last 10 years.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. I understand there are a myriad of reasons for the failure 
to deliver these systems, some based on the way responsibilities are 
divided and many based on technical complexities. Based on my 
experience with financial management systems during my service as Under 
Secretary of Defense (Comptroller), many of the problems are based in 
culture and the failure to fix the underlying business process before 
buying the business system. Therefore, the approach to acquisition must 
be tailored to the unique challenges of each business area. In many 
instances, to achieve progress, it may be necessary to do more than 
simply upgrade the business systems, but instead change the underlying 
approach to the business processes.
    Question. If confirmed, how would you work with the DCMO and the 
Under Secretaries of Defense to address these problems?
    Answer. If confirmed, I would empower the DCMO to resolve the 
cross-functional issues that the Department faces in fielding business 
transformation programs. I believe cultural and business process 
alignment is required for any business transformation effort.
                     business transformation agency
    Question. Four years ago, the Secretary of Defense established the 
BTA to ensure an organizational focus for business transformation 
efforts within the Department. The Director of BTA reports to the DCMO 
in his capacity as vice chairman of the DBSMC.
    What role do you believe the BTA should play in improving the 
business operations and business systems of the DOD?
    Answer. Working with the principal staff assistants, BTA is 
responsible for developing enterprise level business processes, 
standards, and data elements, and ensuring that they are accurately 
reflected in the Business Enterprise Architecture. BTA also has the 
responsibility of delivering certain Enterprise-wide business 
capabilities and working with the Combatant Commands to identify and 
satisfy operational business needs of the warfighter.
    Question. What role do you expect to play, if confirmed, in the 
supervision and management of the activities of the BTA?
    Answer. The Director of BTA will report to the DCMO. However, if 
confirmed, I will set key priorities for performance that business 
operations and business systems must achieve, and the DCMO will be 
accountable to me for ensuring that BTA demonstrates how those 
priorities are reflected in the Department's enterprise architecture 
and enterprise-wide system investments.
    Question. Do you see the need for any changes in the BTA, or the 
statutes authorizing the BTA? If so, what changes would you recommend?
    Answer. I have no changes to recommend at this time.
                    major weapon system acquisition
    Question. What are your views regarding the defense acquisition 
process and the need for reform?
    Answer. I believe the management of defense acquisition programs 
needs to be improved substantially to achieve better outcomes with 
regard to delivering effective equipment within reasonable cost and 
schedule objectives. A number of studies over the years have observed 
significant problems of cost growth, schedule slips, and insufficient 
responsiveness to urgent warfighter needs. These problems have reached 
the point where they have the potential to erode the credibility of the 
Department in this area and the confidence of Congress and the 
taxpayers that public funds are being used effectively. It is not clear 
that reform efforts over the past several years have achieved the 
desired objectives in terms of better outcomes in cost and schedule 
control as well as responsiveness. If confirmed, a high priority would 
be to review acquisition processes with the objective of improving 
stability, realism, accountability, and effective execution.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process--requirements, acquisition, and budgeting?
    Answer. I believe there are critical linkages among requirements, 
acquisition managing, and budgeting. To achieve effective outcomes, all 
three areas must be addressed in an integrated way, which requires 
active involvement by the Deputy Secretary of Defense, working closely 
with the Under Secretary of Defense for Acquisition, Technology, and 
Logistics (USD(AT&L)) and other key officials in the Department. I 
believe effective acquisition programs require realism and stability, 
together with accountability for effective execution of program 
outcomes. To promote these principles, I believe the overall defense 
program needs to be realistic and balanced within the programming and 
budgeting process. Within the acquisition process, realism and 
stability can be fostered through greater emphasis on independent 
assessments of costs, technology readiness, and testing maturity, 
particularly during the early stages of programs. Successful programs 
also require a careful balancing among cost, schedule, and performance 
goals. From my observation, the current requirements and acquisition 
processes have a reluctance to balance performance demands, 
particularly in the early stages of programs when decisions have a 
major impact on subsequent cost and schedule outcomes. Early cost and 
technology maturity assessments of the impacts of various performance 
requirements have the potential to achieve a better balance among cost, 
schedule, and performance, thus leading to better outcomes in 
subsequent program execution.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, projected increases in end 
strength, and asset recapitalization?
    Answer. I believe this is a major challenge facing the Defense 
Department and that addressing these trends should be a central theme 
of the QDR conducted later this year. If current trends continue, it 
will be very difficult to sustain a force large enough to meet the 
demands associated with both near-term operations and the long-term 
defense strategy. A key task for the QDR will be to formulate a 
strategy, force structure, and overall defense program that are in 
balance and are affordable within the national resources available for 
defense.
    Question. What steps would you take, if confirmed, to address out-
of-control cost growth on DOD's major defense acquisition programs?
    Answer. If confirmed, I would assign this as a key priority for the 
new USD(AT&L). Central themes would be greater competition, stability, 
realism, and accountability. Close integration of the requirements, 
acquisition, and resource processes is key to achieving these 
objectives, as is better balancing of cost, schedule, and performance 
objectives. I also believe that improvements can be made through 
greater emphasis on, and attention to, independent assessments of 
costs, technology readiness levels, and testing maturity.
    Question. What steps do you believe that the Department should 
consider taking in the case of major defense acquisition programs that 
exceed the critical cost growth thresholds established in the ``Nunn-
McCurdy'' amendment?
    Answer. Congress recently passed legislation revising the 
methodology for establishing cost baselines used for the purposes of 
establishing Nunn-McCurdy thresholds. I believe this type of approach 
has the potential to change institution incentives in a way that will 
promote greater realism and accountability in the management of 
acquisition programs. If confirmed as Deputy Secretary, I would assess 
the impact of this change on institutional behavior and examine other 
measures that would promote the objective of enhancing realism and 
accountability as a central theme in improving acquisition management.
                        contracting for services
    Question. Over the past 8 years, DOD's spending on contract 
services has more than doubled with the estimated number of contractor 
employees working for the Department increasing from an estimated 
730,000 in fiscal year 2000 to an estimated 1,550,000 in fiscal year 
2007. As a result, the Department now spends more for the purchase of 
services than it does for products (including major weapon systems).
    Do you believe that DOD should continue to support this rate of 
growth in its spending on contract services?
    Answer. Service contractors provide a valuable function to DOD. But 
if confirmed, I would support efforts by the USD(AT&L) and other 
leaders to review the level of contracting services required in keeping 
with President-elect Obama's pledge to have the Department improve its 
strategy for determining when contracting makes sense.
    Question. Do you believe that the current balance between 
government employees (military and civilian) and contractor employees 
is in the best interests of the DOD?
    Answer. DOD requires some mix of Federal employees and contractors 
to carry out its mission effectively. If confirmed, I would support 
efforts to help ensure the appropriate balance in that mix.
    Question. What steps would you take, if confirmed, to control the 
Department's spending on contract services?
    Answer. Service contractors provide a valuable function to DOD, but 
there has been substantial growth in this area over the past decades. 
If confirmed, I intend to review the Department's policies and 
procedures and make any necessary adjustments.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. Over the last several years, the Defense Department has 
implemented very large reductions in the government workforce, and I 
believe a careful review is needed of whether, in the process, DOD has 
become too dependent on contractors to perform inherently governmental 
functions. Congress has recently codified a definition of inherently 
governmental functions and required a review by the Department. I 
believe this review provides a mechanism to address this important 
question.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. I am not familiar with the degree to which DOD is using 
personal services contracts. I do know, however, that there are 
statutory restrictions that govern the use of personal services 
contracts. If confirmed, I will ensure that if personal services 
contracts are being used in a manner that is inappropriate, that 
practice is ended immediately.
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. According to widely published reports, the number of U.S. 
contractor employees in Iraq exceeds the number of U.S. military 
deployed in that country.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. See below.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. See below.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. See below.
    Question. What steps, if any, do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. It is my understanding that Secretary Gates has tasked 
Admiral Mullen to personally oversee a Department-wide review of 
contractor roles and missions. If confirmed, I will work with the 
Secretary and Chairman Mullen in this review and implement 
recommendations where appropriate, and if necessary, work with Congress 
to institutionalize reforms.
                      private security contractors
    Question. Do you believe DOD and other Federal agencies should rely 
upon contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. As a general matter, DOD should use all elements of the 
``total force'' (military forces, DOD civilians, and contractors) to 
address the full spectrum of operational requirements. President-elect 
Obama has cited the need to improve transparency in how private 
security contractors are utilized and to establish clear standards 
regarding Rules of Engagement, personnel policies, and communications 
guidelines. If confirmed, I will work with the Department and 
interagency process, as well as with the committee, to address these 
issues.
    Question. In your view, has the United States' reliance upon 
private security contractors to perform such functions risked 
undermining our defense and foreign policy objectives in Iraq?
    Answer. I do not have a view on this matter. If confirmed, I will 
review this issue and keep Congress informed.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. I do not have any specific recommendations at this time. 
But, if confirmed, I will review the question of private security 
contractors and work with the committee on any needed changes.
    Question. How do you believe the ongoing operations of private 
security contractors in Iraq are likely to be affected by the new 
Status of Forces Agreement (SOFA) between the United States and Iraq?
    Answer. It is my understanding that since January 1, U.S. 
Government private security contractors no longer have immunity from 
host nation law. Furthermore, they must comply with host nation 
registration and licensing and, therefore, they already have been 
impacted. Many contractors already have had other contractual 
relationships within Iraq and already have been subject, for those 
contracts, to Iraqi law and regulations. For all contractors, the SOFA 
has meant substantially more liaison and coordination with Iraqi 
authorities at all levels.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. Yes.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of private security 
contractors operating in an area of combat operations?
    Answer. If confirmed, I will review this issue in conjunction with 
the advice of the General Counsel.
            contractor performance of information operations
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media.
    What is your view on the effectiveness of information operations 
conducted by the United States through the Iraqi media?
    Answer. I have not had an opportunity to become familiar with the 
details of these programs. If confirmed, I would be happy to look into 
these matters and discuss them with the committee.
    Question. Do you believe that it is appropriate for the United 
States to pay for media campaigns to build up support for the 
government and the security forces of Iraq at a time when the Iraqi 
Government has a surplus of tens of billions of dollars?
    Answer. See previous answer.
    Question. Do you believe that the U.S. Government, or the Iraqi 
Government, should be responsible for developing a message to build up 
support for the government and security forces of Iraq, and for 
developing media campaigns for this purpose?
    Answer. See previous answer.
    Question. In your view, is DOD's use of private contractors to 
conduct information operations through the Iraqi media appropriate?
    Answer. See previous answer.
    Question. Do you see a risk that a DOD media campaign designed to 
build up support for the government and security forces of Iraq could 
result in the inappropriate dissemination of propaganda inside the 
United States through the internet and other media that cross 
international boundaries?
    Answer. See previous answer.
    Question. A spokesman for the Iraqi Government has been quoted as 
saying that any future DOD information operations in the Iraqi media 
should be a joint effort with the Iraqi government. According to a 
November 7, 2008 article in the Washington Post, the spokesman stated: 
``We don't have a hand in all the propaganda that is being done now. It 
could be done much better when Iraqis have a word and Iraqis can 
advise.''
    Do you believe that DOD information operations through the Iraqi 
media should be conducted jointly with the Iraqis?
    Answer. I have not had an opportunity to become familiar with the 
details of these programs. If confirmed, I would be happy to look into 
these matters and discuss them with the committee.
    Question. Under what circumstances do you believe that it is 
appropriate for the DOD to conduct information operations in a 
sovereign country without the knowledge and support of the host 
country?
    Answer. See previous answer.
                                  iraq
    Question. What, in your view, are the greatest challenges facing 
the Department in implementing the U.S.-Iraq SOFA and what actions, if 
any, would you recommend to maximize the chances of success in meeting 
the requirements for the withdrawal of U.S. forces?
    Answer. I have not had the opportunity to review any plans 
regarding the repositioning and redeployment of U.S. forces in Iraq. If 
confirmed, I would review such plans and make any necessary 
recommendations to the Secretary of Defense.
    Question. What do you believe is the appropriate role for the 
United States in reconstruction activities in Iraq going forward?
    Answer. I support the President-elect's views on bringing in Iraq's 
neighbors to help with reconstruction efforts. I also believe American 
policy should continue to be supportive in working by, with, and 
through our Iraqi partners and that the U.S. role in reconstruction 
should focus on capacity development and assisting our Iraqi partners 
in prioritizing, planning, and executing their reconstruction projects.
                              afghanistan
    Question. What, in your view, are the main challenges facing United 
States and coalition forces in Afghanistan?
    Answer. Our strategic objective is a stable and secure Afghanistan 
in which Al Qaeda and the network of insurgent groups, including the 
Taliban, are incapable of seriously threatening the Afghan state and 
resurrecting a safe haven for terrorism.
    Question. What changes, if any, would you recommend to our current 
strategy in Afghanistan?
    Answer. Achieving our strategic objectives in Afghanistan will 
require a more integrated and comprehensive approach to security, 
economic development, and governance. All of the instruments of 
national power and persuasion must be harnessed in order to be 
successful. It is imperative that we improve coordination and 
cooperation between Afghanistan and its neighbors and that there be 
better unity of effort among our coalition partners, international 
institutions, and the Government of Afghanistan.
    Question. Do you support an expansion of U.S. forces in 
Afghanistan? If so, would you support drawing down U.S. forces in Iraq 
faster in order to increase U.S. force levels in Afghanistan sooner?
    Answer. President-elect Obama consistently stated throughout the 
campaign that he believed the deteriorating security conditions in 
Afghanistan required additional U.S. and international forces. If 
confirmed, I will work carefully with the Secretary and Congress in 
balancing the demands of our Iraq and Afghanistan deployments while 
ensuring the military is ready to meet other challenges.
    Question. Do you believe that there is a need to develop a 
comprehensive civil-military plan for Afghanistan, akin to that used in 
Iraq?
    Answer. Yes.
    Question. How do you assess the contributions of North Atlantic 
Treaty Organization (NATO) allies to the effort in Afghanistan, and how 
do you believe that the United States can persuade them to increase 
their efforts as the United States does so?
    Answer. Afghanistan would be less secure without the contributions 
and sacrifices of our NATO allies and other international security 
assistance force partners. President-elect Obama and Secretary Gates 
have both called for greater contributions with fewer caveats from our 
NATO allies. By providing better American leadership in Afghanistan, 
and by committing more of our own resources to the challenge, the 
United States will be better positioned to persuade our allies to do 
more.
    Question. One of the main threats to U.S. and coalition forces in 
Afghanistan comes from cross-border attacks by the Taliban and 
extremist militants who find safe haven in Pakistan's border regions.
    What in your view needs to be done to eliminate the threat posed by 
Taliban and extremist militants hiding out across the Afghan-Pakistan 
border?
    Answer. Both President-elect Obama and Secretary Gates have cited 
the need to eliminate the terrorist sanctuary in the border regions of 
Pakistan, but there is no purely military solution. The United States 
must have an integrated strategy to promote development and combat 
terrorism across the Afghanistan-Pakistan border region.
    Question. The cultivation of poppies and trafficking of opium has 
reached alarming proportions in Afghanistan. Some estimate that over 50 
percent of Afghanistan's gross national product is associated with the 
illegal opium trade and that Afghanistan is at risk of failing as a 
nation state. Coalition strategies for countering the opium trade have 
not been effective to date.
    What should be the role of the U.S. military forces in the 
counterdrug program in Afghanistan?
    Answer. The international community must play a role in helping the 
Afghan government to strengthen Afghan institutions, including the 
judicial and law enforcement system, intelligence service, and Afghan 
National Security Forces, that will increasingly take the lead in 
combating narcotics in Afghanistan. While current NATO rules of 
engagement restrict NATO forces from direct operations against the 
narcotics industry, NATO can assist in training Afghan counternarcotics 
forces.
    Question. What are the main challenges facing the United States and 
international community's reconstruction efforts in Afghanistan?
    Answer. I have not had the opportunity to review the reconstruction 
effort in Afghanistan; however, if confirmed, will make this a high 
priority.
    Question. What would be your priorities for addressing those 
challenges?
    Answer. If confirmed, I look forward to working across the 
interagency and with international partners to create a truly 
comprehensive civil-military strategy to build the necessary foundation 
for a stable and secure Afghanistan.
                                pakistan
    Question. In your view, is the Pakistani Government doing enough to 
combat the threat posed by militant groups along the Afghan-Pakistan 
border and to fight terrorism in general? If not, what more should it 
be doing?
    Answer. I have not reviewed this area but, if confirmed, will 
review it as a high priority.
    Question. What changes, if any, would you recommend in the United 
States approach to Pakistan on these issues?
    Answer. See above.
    Question. Tensions between Pakistan and India have increased as a 
result of the horrific attacks in Mumbai, India.
    In your view, what impact has this rise in tensions between 
Pakistan and India had on the stability of the South Asia region, 
generally, and on the prospects for security in Afghanistan?
    Answer. India, Pakistan, and Afghanistan are linked by history, 
culture, language, and trade, and regional stability cannot be achieved 
without the cooperation of all three countries. It is in America's 
national interest to play a constructive role in helping defuse the 
recent rise in tensions and to help derive from the tragic attacks in 
Mumbai an opportunity for further cooperation between three of 
America's crucial allies.
                                  iran
    Question. Do you believe it would be in the United States' interest 
to engage Iran in a direct dialogue to promote regional stability and 
security, to dissuade Iran from pursuing a nuclear weapons program, or 
for other purposes?
    Answer. I support the President-elect's view that the United States 
should be willing to engage with all nations, friend or foe, and be 
willing, with careful preparation, to pursue direct diplomacy. 
Furthermore, I fully support the President-elect's view that we should 
not take any options off the table, but that we should employ tough, 
direct diplomacy backed by real incentives and pressures, to prevent 
Iran from acquiring nuclear weapons and end their support of terrorist 
organizations such as Hezbollah.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program?
    Answer. I have no recommendations in this area. But if confirmed, I 
will review it as a high priority.
                                 china
    Question. What do you believe are China's political-military 
objectives regarding Taiwan, the Asia-Pacific region, and globally?
    Answer. Broadly, the overriding objectives of China's leaders 
appear to be to ensure the continued rule of the Chinese Communist 
Party, to continue China's economic development, to maintain the 
country's domestic political stability, to defend China's national 
sovereignty and territorial integrity, and to secure China's status as 
a great power. Within this context, preventing any moves by Taipei 
toward de jure independence is a key part of Beijing's strategy. Within 
each dimension there lies a mix of important challenges and 
opportunities for the United States that will continue to deserve 
priority attention.
    Question. What is your view of the U.S. policy of selling military 
equipment to Taiwan, despite China's objections?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
Taiwan Relations Act, which provides that the United States will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability. That policy has contributed to peace and stability in the 
region for nearly 30 years and is consistent with the longstanding U.S. 
calls for peaceful resolution of the Taiwan issue in a manner 
acceptable to the people on both sides of the Taiwan Strait. If 
confirmed, I would work closely with Congress and the interagency to 
ensure the continued effective implementation of this longstanding 
policy.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. The pace and scale of Chinese modernization, coupled with 
the lack of transparency surrounding both capabilities and intentions, 
are a source of concern for the United States as well as for its allies 
and the region more broadly. An appropriate U.S. response would include 
efforts to fully comprehend the future direction of China's programs, 
active engagement to reduce the potential for miscalculations and to 
manage unwanted competition, and, finally, defense preparedness to 
ensure we retain our edge in areas that are critical to achieving 
specific operational objectives. If confirmed, I would seek to ensure 
that DOD places a high priority on this issue and would consult closely 
with Committee members on appropriate U.S. responses.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations, and do you favor increased 
military-to-military contacts with China?
    Answer. Much more can be done to improve the U.S.-China military-
to-military relationship, both in terms of the quality and the quantity 
of exchanges between the Armed Forces of our countries. If confirmed, I 
would look closely at exchanges with the Chinese armed forces at all 
levels and across a range of issues, including the recently opened 
dialogue on nuclear policy and strategy, which I understand is a 
priority for Secretary Gates. If confirmed, I look to engage in a wide 
range of areas where we can encourage China to act responsibly both 
regionally and globally.
                              north korea
    Question. What is your assessment of the threat posed to the United 
States, its forward deployed forces, and its allies by North Korea's 
ballistic missile and weapons of mass destruction (WMD) capabilities 
and the export of those capabilities?
    Answer. North Korea poses a serious threat to the United States, 
the rest of Asia, and the world through its missile and WMD programs 
and proliferation of associated technologies, materials and systems. 
North Korea's continuing nuclear ambitions compound this situation. 
Strong alliances, regional partnerships and forward military presence 
remain key means to deal with these threats. U.S. national capabilities 
are also an essential element in deterring the threat and defending our 
interests. Additionally, in the event of a DPRK collapse, the United 
States would need to work closely with the Republic of Korea (ROK) to 
rapidly and safely secure loose nuclear weapons and materials.
    Question. In your view, how should U.S. forces be sized, trained, 
and equipped to address this threat?
    Answer. If confirmed, I would work closely with Chairman of the 
Joint Chiefs of Staff, senior military commanders and members of this 
committee to ensure that the U.S. military has the capabilities needed 
to deal with the range of threats North Korea poses and that our 
contingency planning is adaptive and responsive.
    Question. In your view, what steps, if any, should be taken to 
maintain or strengthen deterrence on the Korean peninsula?
    Answer. Maintaining a strong alliance between the United States and 
the ROK remains central to effective deterrence on the Peninsula. Our 
alliance with Japan is likewise a critical factor in security and 
stability in the wider Asia-Pacific region, including on the Peninsula. 
If confirmed, I would work hard to continue strengthening these 
alliances.
                        republic of south korea
    Question. If confirmed, what measures, if any, would you recommend 
to improve the U.S.-ROK security relationship?
    Answer. If confirmed, I would work with Congress to complete the 
realignment of U.S. forces on the Korean peninsula and return 
facilities our forces no longer require. I would also work to ensure 
that our command and control relationships with Korea and our 
contingency plans remain appropriate to the situations we face. 
Additionally, I believe it is important to ensure the U.S. and Korean 
publics continue to understand the enduring mutual benefits derived 
from this alliance.
    Question. What is your view regarding the timing of the transfer of 
authority for wartime operational command to the ROK?
    Answer. As Secretary Gates said following his meeting with the 
Korean Minister of Defense last October, the ROK military forces and 
U.S. forces are on track to complete the alliance agreement to 
transition wartime operational control in 2012. This effort will enable 
the ROK military to take the lead role in the defense of its nation. If 
confirmed, I will work with the Secretary and this Committee to ensure 
that the important transition in command relationships is carried out 
in a manner that strengthens deterrence and maintains a fully capable 
U.S.-ROK combined defense posture on the Korean Peninsula.
                          u.s. africa command
    Question. On October 1, 2008, U.S. Africa Command (AFRICOM) was 
authorized Unified Command status.
    What do you see as the role of AFRICOM in U.S. African policy, in 
development assistance, and in humanitarian engagement?
    Answer. The Department of State and U.S. Agency for International 
Development lead U.S. foreign policy and development engagements 
abroad, to include in Africa. President-elect Obama has argued that 
AFRICOM should promote a more united and coordinated engagement plan 
for Africa. If confirmed, I would take steps to implement that vision.
                          combating terrorism
    Question. How can the Department best structure itself to ensure 
that all forms of terrorism are effectively confronted?
    Answer. I do not have enough information to recommend changes in 
the Department's structure for confronting terrorism at this time. If 
confirmed, I look forward to evaluating the Department's structure for 
counter-terror efforts.
    Question. What changes, if any, would you recommend to the Defense 
Intelligence Community to ensure optimal support to combating terrorism 
and other homeland security efforts?
    Answer. I have not had the opportunity to review this area. But, if 
confirmed, I will work with the USD (Intelligence) and the Intelligence 
Community to review this area for any improvements.
                              war on drugs
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States.
    What is your assessment of the ongoing efforts of the United States 
to significantly reduce the amount of drugs illegally entering into our 
Nation?
    Answer. If confirmed, I will work with my interagency colleagues to 
assess the U.S. Government's efforts to date and craft a strategic way 
forward.
    Question. In your view, what is the appropriate role of DOD in U.S. 
counterdrug efforts?
    Answer. The Department's global focus, organization, expertise, and 
its ability to act as an honest broker complement law enforcement 
goals, and make it an effective actor in counterdrug efforts. DOD 
brings important tools and global capabilities to interagency efforts 
to counter both terrorist and international criminal networks.
                           engagement policy
    Question. One of the central pillars of our recent national 
security strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
humanitarian demining operations, and other engagement activities have 
been used to achieve this goal.
    Do you believe that these activities contribute positively to U.S. 
national security?
    Answer. Military-to-military contacts contribute to U.S. national 
security in a variety of important ways. Such activities can build 
capacity among partner nations to participate in coalition operations 
to counter terrorism and other transnational threats, potentially 
relieving stress on U.S. forces. They can help harmonize nations' views 
of common security challenges. Military-to-military activities can also 
help sustain investments made by other U.S. assistance programs. 
Finally, when performed effectively, military-to-military activities 
should show by example how military forces can act effectively while 
respecting human rights and civilian oversight.
    Question. If confirmed, would you support continued engagement 
activities of the U.S. military?
    Answer. If confirmed, I will support continued U.S. military-to-
military engagement. I believe the current and emerging security 
environment will require robust engagement with the militaries of our 
partners and allies around the world.
    Question. What improvements, if any, would you suggest to the 
interagency process for undertaking these activities?
    Answer. None at this time.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train-and-equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207).
    In your view, what should be our strategic objectives in building 
the capacities of partner nations?
    Answer. One of the greatest threats to international security is 
the violence that is sparked when human security needs are not met by 
governments. This creates space for terrorists, insurgents, and other 
spoilers to operate and, as the September 11 attacks demonstrated, to 
threaten the United States and its allies. The goal, therefore, is to 
close this space through efforts that strengthen bilateral 
relationships; increase access and influence; promote militaries that 
respect human rights, civilian control of the military and the rule of 
law; and build capacity for common military objectives. In addition to 
promoting regional and global security, enhanced partner capacity 
reduces the risk of future military interventions and reduces stress on 
U.S. Armed Forces.
    Question. Secretary Gates has called for an expansion of the 
Government's resources devoted to instruments of nonmilitary ``soft 
power''--civilian expertise in reconstruction, development, and 
governance.
    Do you agree with Secretary Gates that there is a need to expand 
the Government's resources devoted to the ability of civilian 
departments and agencies to engage, assist, and communicate with 
partner nations?
    Answer. Yes. The President-elect and Secretary Gates have both made 
clear their strong desire to see more robust non-military instruments 
of national power. If confirmed, I will certainly make it my priority 
to assist in this effort.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the civilian departments and agencies of the Government, in the 
exercise of instruments of soft power?
    Answer. Generally, the Department's role should be to support, not 
lead, in the exercise of ``soft power.'' Where DOD plays a vital role 
is in helping to promote--through the full gamut of planning, 
exchanges, exercises, operations, and bilateral defense relationships--
the conditions that enable these instruments to be applied with maximum 
beneficial effect.
                          stability operations
    Question. The U.S. experience in Iraq has underscored the 
importance of planning and training to prepare for the conduct and 
support of stability operations in post-conflict situations.
    In your view, what are the appropriate roles and responsibilities 
between DOD and other departments and agencies of the Federal 
Government in the planning and conduct of stability operations?
    Answer. In stabilizing post-conflict environments, success depends 
upon the integrated efforts of both civilian and military organizations 
in all phases of an operation, from planning through execution. 
Ideally, civilian agencies should lead in areas such as building 
accountable institutions of government, restoring public infrastructure 
and in reviving economic activity. Military forces, in turn, are best 
suited to help provide a safe and secure environment and to assist in 
building accountable Armed Forces.
    Question. In developing the capabilities necessary for stability 
operations, what adjustments, if any, should be made to prepare U.S. 
Armed Forces to conduct stability operations without detracting from 
its ability to perform combat missions?
    Answer. The most important lesson is that 21st century conflict is 
``full spectrum.'' That is, the military cannot be prepared only for 
combat. They must plan and train with their civilian counterparts and 
be prepared to operate effectively in all phases of conflict. That 
said, the military should also be prepared to undertake critical 
nonmilitary tasks when the civilian agencies cannot operate 
effectively, either due to the security environment or, more likely, 
due to lack of capacity. Indeed, the need for greater capabilities and 
capacity in civilian agencies has been a recurring lesson for the 
entire government. Finally, we need to obtain better situational 
awareness of the underlying drivers--political, cultural, and 
economic--of stability and conflict so as to ensure that our actions 
will meet our objectives and not trigger unintended consequences.
                        special operation forces
    Question. Do you believe that the force size, structure, and budget 
of the Special Operations Command is sufficient, given the current 
roles and missions of Special Operation Forces (SOF)? If not, why not, 
and what changes would you recommend, if confirmed?
    Answer. DOD SOF have been significantly strengthened in recent 
years, which I believe is an entirely appropriate response to the 
demands of the current national security environment. I have not had a 
chance to review in detail any possible organizational issues 
associated with force structure or resources required for SOF. However, 
the next QDR will consider SOF capabilities.
                                 russia
    Question. What are the areas of engagement with Russia that are 
most beneficial from a DOD perspective? How would you recommend 
carrying out such engagement?
    Answer. If confirmed, I will make it a priority to assess areas 
where greater military-to-military and other exchanges with Russia 
might be beneficial.
    Question. Is it in the U.S. interest to extend the duration of the 
Strategic Arms Reduction Treaty (START), or, alternatively, to 
negotiate a new treaty that will offer similar benefits to both parties 
and further reduce their nuclear forces?
    Answer. If confirmed, I will make it a priority to review to 
determine the best path forward with respect to START, the Moscow 
Treaty, and any successor agreements.
               dod's cooperative threat reduction program
    Question. In your view, what are the nonproliferation and threat 
reduction areas in which DOD's Cooperative Threat Reduction (CTR) 
program should focus in the next 4 years?
    Answer. I anticipate that the President-elect will require the 
State Department, Department of Energy, and DOD to much more closely 
coordinate nuclear risk reduction efforts. The congressional initiative 
to expand the geographic reach of the Nunn-Lugar CTR program beyond the 
former Soviet Union is an important step toward reducing WMD threats 
and building global partnerships. If confirmed, I will work closely 
with Congress, other U.S. government agencies, and global partners to 
strengthen our efforts to prevent WMD proliferation and terrorism.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the set of programs to modernize 
our tactical aviation forces with fifth generation tactical aircraft 
equipped with stealth technology, to include the F-22 and the Joint 
Strike Fighter (JSF).
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. The F-22 is the most advanced tactical fighter in the world 
and, when combined with the F-35 JSF, will provide the Nation with the 
most capable and lethal mix of fifth generation aircraft available for 
the foreseeable future. The tremendous capability of the F-22 is a 
critical element in the Department's overall tactical aircraft force 
structure requirements, as it replaces our legacy F-15 fleet. The F-35 
will provide the foundation for the Department's tactical air force 
structure. It will replace the legacy F-16 aircraft for the Air Force 
and the F/A-18 and AV-8 aircraft for the Navy and Marine Corps, as well 
as numerous legacy aircraft for the international partners 
participating in the F-35 program. A critical question is the 
appropriate mix between the F-22 and the F-35. If confirmed, I would 
expect this to be a key issue for the early strategy and program-budget 
reviews that the Department will conduct over the next few months.
    Question. Even if all of the current aircraft modernization 
programs execute as planned, the average age of the tactical, 
strategic, and tanker fleet will increase. Aging aircraft require ever-
increasing maintenance, but even with these increasing maintenance 
costs, readiness levels continue to decline.
    Can both the maintenance of the legacy force and the modernization 
efforts be affordable at anywhere near the current budget levels?
    Answer. Clearly, the operational tempo and the increased employment 
of the Nation's aircraft to execute the global war on terrorism are 
extracting a toll on the existing equipment and the personnel who 
maintain that equipment. If confirmed, I would expect the QDR and the 
associated processes to formulate the fiscal year 2011 defense program 
and budget to examine the question of how best to balance the force 
structure and modernization programs needed to meet the demands of the 
strategy within available resources.
    Question. Some critics believe that there is still too much service 
parochial duplication in procuring new systems.
    Do you agree with these critics? If so, what would you recommend to 
ensure more jointness in procurement?
    Answer. There are individual cases that can be identified to 
support both sides of the debate. The Department's largest acquisition 
program, the JSF, is certainly an example of how the Services have been 
able to work together to procure common systems when the mission needs, 
operating environments, and operational tactics are sufficiently 
similar to allow common solutions. However, our Nation has evolved to a 
defense structure with separate services because of the broad nature of 
our defense posture, which operates across the globe in the air, land, 
maritime, and space domains. In an organization as large and complex as 
the U.S. DOD, there is a need for specialization among organizational 
sub-elements, which in our system are structured around the traditional 
military departments. This has been an effective structure, but it does 
inevitably create ``seams'' among the sub-elements. In turn, there are 
inevitably issues that cut across those seams. These are not 
necessarily a result of parochialism, but they do require an 
overarching corporate process to address those seam issues. In my 
experience, this is one of the critical functions of the Office of the 
Secretary of the Defense and the Joint Staff. If confirmed as Deputy 
Secretary, I would regard promoting joint solutions, where appropriate, 
to be one of my key functions, working in close cooperation with the 
Vice Chairman of the Joint Chiefs of Staff.
                            unmanned systems
    Question. Congress has established a goal that by 2015, one-third 
of the aircraft in the operational deep strike force aircraft fleet and 
one-third of operational ground combat vehicles will be unmanned.
    Do you support this goal?
    Answer. I support the goal of increasing operational capability 
through the expanded use of unmanned systems. I believe that 
substantial progress has been made in this area in recent years and 
that more will be needed in the coming years. If confirmed, I expect 
this would be a focus area for the program and budget reviews that will 
be conducted this year, as well as the QDR. At this time, I do not have 
a view on the exact portion of capability that should be obtained 
through unmanned systems, though I expect more insight on this question 
would be obtained during those reviews.
    Question. What is your assessment of DOD's ability to achieve this 
goal?
    Answer. If confirmed, I will review DOD's progress towards 
achieving this goal during the QDR and other program and budget reviews 
that must be conducted later this year.
    Question. What steps do you believe the Department should take to 
achieve this goal?
    Answer. I believe this issue should be an area of focus during the 
QDR and the other program and budget reviews that must be conducted 
later this year.
            joint improvised explosive device defeat office
    Question. The Deputy Secretary of Defense issued a directive 
granting full authority and responsibility to the Joint Improvised 
Explosive Device Defeat Office to lead the Department's efforts in 
fighting the improvised explosive device (IED) threat.
    What are your views regarding the Department's process for 
addressing the combatant commander's requirements for the fielding of 
IED countermeasures?
    Answer. I agree with Secretary Gates--this is a vitally important 
mission that requires a level of effort beyond the business-as-usual 
approach. I understand IEDs have been the most frequent cause of 
casualties to our Armed Forces in Iraq that consequently has demanded a 
cross-functional organization with a strong mandate from the senior 
leadership to streamline acquisition, budgetary, testing, and other 
processes.
    Question. What else can and should be done to get this critical 
capability to the warfighters?
    Answer. The current approach appears to be sound, but if confirmed, 
I will continually evaluate its effectiveness, seek the advice of 
senior operational commanders, and remain open to options that would 
improve our responsiveness and effectiveness in this crucial area.
               readiness impact of contingency operations
    Question. Over the past several years, military units have been 
increasingly deployed to contingency operations around the world. 
Participation in these operations disrupt operating budgets, cause lost 
training opportunities, and accelerate wear and tear on equipment. 
Additionally, increased tempo of operations impacts quality of life and 
could jeopardize retention of high-quality people.
    What ideas do you have with regard to how to reduce the impact of 
these operations on both near- and long-term readiness and 
modernization programs?
    Answer. I agree with both Secretary Gates and President-elect Obama 
that restoring a semblance of balance to the operational tempo of our 
military forces, particularly the Army and Marine Corps, is very 
important to ensure the future health of the All-Volunteer Force. If 
confirmed, I look forward to balancing the necessity of contingency 
deployments with readiness concerns, and working closely with the 
committee on this important subject.
                         information assurance
    Question. Protection of military networks, information, and 
communications is critical to DOD operations. The Department's 
Inspector General has noted that the Department does not yet have a 
comprehensive enterprise-wide inventory of information systems which 
makes reliable evaluation of the security of information systems 
impossible.
    What is your assessment of the security of the Department's 
information systems?
    Answer. See below.
    Question. What Department-wide policies or guidance do you believe 
are necessary to address information and cyber security challenges for 
current and future systems?
    Answer. I recognize that cyber infrastructure is a critical asset 
to the Department. If confirmed, I will familiarize myself with ongoing 
efforts to secure DOD's information systems and address cyber 
challenges in the development of new capabilities.
                          test and evaluation
    Question. What is your assessment of the appropriate balance 
between the desire to reduce acquisition cycle times and the need to 
perform adequate testing?
    Answer. I support rigorous independent testing and evaluation to 
provide accurate and objective information on the capabilities and 
limitations of defense systems to both acquisition executives and the 
warfighters. When systems are urgently needed in the field, the 
imperative for accurate and objective test and evaluation (T&E) 
assessments is just as important but should be addressed through 
efforts to expedite the T&E process, as has been accomplished 
successfully for such urgent efforts as the MRAP vehicle program.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that has not been 
demonstrated through T&E to be operationally effective, suitable, and 
survivable?
    Answer. In extremely rare circumstances, it might be necessary to 
field a system prior to operational testing in order to address an 
urgent gap in a critical capability. But even in such cases, 
operational evaluation should still be conducted at the earliest 
opportunity to assess the system's capabilities and limitations and 
identify any deficiencies that might need to be corrected.
    Question. Congress established the position of Director of 
Operational Test and Evaluation to serve as an independent voice on 
matters relating to operational testing of weapons systems. As 
established, the Director has a unique and direct relationship with 
Congress which allows him to preserve his independence.
    Do you support the Director of Operational Test and Evaluation's 
ability to speak freely and independently with Congress?
    Answer. Yes.
             funding for science and technology investments
    Question. In the past, the QDR and the Department's leaders have 
endorsed the statutory goal of investing 3 percent of the Department's 
budget into science and technology programs.
    Do you support that investment goal?
    Answer. If confirmed, I plan to place a high priority on 
maintaining a robust science and technology program for the Department. 
Basic science and technology research ensures the Department remains on 
the cutting edge of combat capability and is responsive to the 
warfighter.
    Question. How will you assess whether the science and technology 
investment portfolio is adequate to meet the current and future needs 
of the Department?
    Answer. Determining the suitability of the Department's science and 
technology program is a complex challenge. The Department should take a 
holistic approach, assessing the opportunities and threats across all 
the Services, to determine where to best focus investment and energy.
                          technology strategy
    Question. You were a member of the National Academy's panel that 
produced the report ``Rising Above the Gathering Storm'' recommending 
doubling investments in defense basic research over 7 years.
    What is your assessment of the Department's ability to develop a 
responsive research strategy capable of quick reaction but which is 
also designed to include sustained investments in the development of a 
set of capabilities based on threat predictions and identification of 
related technology gaps?
    Answer. See below.
    Question. How should the Department proceed to implement the 
National Academy's recommendations regarding basic research 
investments?
    Answer. While not a participant in ``Rising Above a Gathering 
Storm,'' I support its foundational principles of developing knowledge-
based resources through education and research to maintain our 
country's competitive edge.
                       ballistic missile defense
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. The effectiveness of missile defense systems must be viewed 
not as a stand alone capability, but as part of an overarching strategy 
to counter the proliferation and deter the use of ballistic missiles. 
The criteria to demonstrate the operational effectiveness, suitability, 
and survivability should be collaboratively determined early in the 
development of missile defense systems by the operational test 
community and Missile Defense Agency, and independently evaluated by 
the Director of for Operational Test and Evaluation. Based on 
independently validated cost estimates, DOD must compare the cost and 
effectiveness of missile defense systems. We then must determine the 
priority of funding and timeframe to develop missile defense systems.
    Question. Do you agree that U.S. missile defense efforts should be 
prioritized on providing effective defenses against existing ballistic 
missile threats, especially the many hundreds of short- and medium-
range ballistic missiles that are currently within range of our 
forward-based forces, allies, and other friendly nations?
    Answer. Our development and deployment of missile defenses is only 
one component of a strategy to counter the proliferation and deter use 
of ballistic missiles of all ranges. This development and deployment 
should be proportional to the types and ranges of ballistic missiles 
threats existing today, but should also deter today's pursuit by many 
countries to acquire greater inventories, ranges, and accuracies of 
ballistic missiles.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to making decisions to 
deploy such systems?
    Answer. The criteria to demonstrate the operational effectiveness, 
suitability, and survivability should be collaboratively determined 
early in the development of missile defense systems by the operational 
test community and Missile Defense Agency, and independently validated 
by the Director of for Operational Test and Evaluation. DOD must 
clearly understand and consider the capabilities and limitations of 
ballistic missile defense systems prior to any deployment decisions.
    Question. If the United States and Russia could agree on a 
cooperative approach on missile defense issues, do you believe it would 
be in the security interest of the United States to pursue such an 
effort?
    Answer. A critical step to counter the proliferation of ballistic 
missile technologies and inventories is to demonstrate the ability of 
the international community to observe all ballistic missile testing 
and exercises around the world. Cooperative efforts to combine today's 
considerable U.S. and Russian ballistic missile surveillance assets, 
and link them to international organizations such as NATO, would 
demonstrate the U.S. and Russia's resolve to stop proliferation. 
Additionally, it would be an important confidence building step for 
further cooperative development of missile defense capabilities in the 
interest of the security of both the United States and Russia.
    chemical weapons elimination and the chemical weapons convention
    Question. Do you agree that the United States should make every 
effort to meet its treaty obligations, including its obligations under 
the Chemical Weapons Convention (CWC)?
    Answer. See below.
    Question. Would you take steps, if confirmed, to raise the priority 
of the Department's efforts to eliminate the U.S. chemical weapons 
stockpile as close to the CWC deadline as possible?
    Answer. The United States has a long history and tradition of 
meeting and strictly complying with international treaties. I 
understand that we will have destroyed 90 percent of our stockpile by 
the treaty mandated date of 2012, and will even have started to 
eliminate the facilities that performed the actual destruction. Because 
of a decision to use an alternative destruction technology rather than 
the incineration method currently in use at each facility today, two 
new destruction facilities must be built to destroy that last 10 
percent of the stockpile. If confirmed, I will review the progress of 
facility construction and eventual chemical weapons elimination at 
those two remaining facilities to ensure that we complete destruction 
of our total stockpile as rapidly and safely as possible.
               nuclear weapons and stockpile stewardship
    Question. As the stockpile continues to age, what do you view as 
the greatest challenges with respect to assuring the safety, 
reliability, and security of the stockpile?
    Answer. The safety, reliability, and security of our nuclear 
weapons needs to be a top priority of DOD. The greatest challenge is 
not technical, but rather the restoration of a proactive, zero-defect 
culture in the stewardship of nuclear weapons in the operational force. 
Secretary Gates has focused a great deal of attention on this issue, 
and, if confirmed, I would intend to support his efforts to address the 
problems.
    Question. Would you support substantial reductions in the U.S. 
nuclear stockpile?
    Answer. The President-elect has indicated that he believes the 
United States should lead an international effort to deemphasize the 
role of nuclear weapons. Toward that end, he intends to open 
discussions with Russia and with other nuclear powers with an aim 
toward reducing global nuclear weapons stockpiles. Such negotiations 
would require close coordination with other Departments and, if 
confirmed, I would intend to perform whatever role the Secretary 
designates for me in that effort.
                        active-duty end strength
    Question. What is your view of the adequacy of the existing Active-
Duty Army and Marine Corps end strength to support current missions 
including combat operations in Iraq and Afghanistan?
    Answer. If confirmed, I know that this is a question that will 
require my immediate attention. It must, among other things, consider 
both the potential contributions of our Guard and Reserve Forces, and 
the adequacy of a ``rotation base'' sufficient to assure that we meet 
the needs of our volunteers and their families.
    Question. Do you believe the planned increases in end strength for 
the Army and the Marine Corps are affordable and necessary?
    Answer. The President-elect supports the expansion of our ground 
forces, and I understand that the Department has made significant 
progress toward those goals. If confirmed, I will review these plans, 
as well as the associated housing, training, and equipment programs to 
support our ground forces.
                     treatment of wounded warriors
    Question. In November 2008, the acting Comptroller General 
identified care for service members as one of the most urgent issues 
facing Congress and the new administration.
    If confirmed, what will you do to ensure that injured service 
members receive the quality health care that they need for as long as 
they need it, including diagnosis and treatment of traumatic brain 
injury, post-traumatic stress disorder, and other mental health 
conditions?
    Answer. Providing needed care and support for servicemembers, 
veterans, and their families is a continuing and urgent priority for 
Congress and the Department. If confirmed, I will make research on 
prevention and treatment of traumatic brain injury, post-traumatic 
stress disorder, and other mental health conditions a priority.
    Question. The Wounded, Ill, and Injured Senior Oversight Committee 
(SOC), co-chaired by the Deputy Secretary of Defense and the Deputy 
Secretary of Veterans Affairs, has improved the cooperation between the 
Departments of Defense and Veterans Affairs, the two Federal agencies 
charged with the care of our military personnel and veterans, and their 
families. Because of reports that the SOC would discontinue operations 
and to ensure that senior leadership of the new administration would 
remain focused on this issue, Congress required the Secretaries of 
Defense and Veterans Affairs to continue the operation of the SOC 
through December 31, 2009.
    What is your view of the value of the SOC?
    Answer. As I understand it, the SOC has engaged the senior 
leadership of both departments in finding joint solutions to support 
the wounded warrior. This is a unique and valuable forum for addressing 
the major issues confronting us.
    Question. If confirmed, will you continue the operation of the SOC, 
and what role do you expect to play?
    Answer. If confirmed, I will review the work of the committee and 
our current and future challenges in coordination with the Department 
of Veterans Affairs. As envisioned by Congress, the SOC will continue 
to address those challenges through this year, and I anticipate that I 
would continue to co-chair it with the Deputy Secretary of VA.
                        disability severance pay
    Question. Section 1646 of the Wounded Warrior Act, included in the 
National Defense Authorization Act for Fiscal Year 2008, enhanced 
severance pay and removed a requirement that severance pay be deducted 
from VA disability compensation for service members discharged for 
disabilities rated less than 30 percent incurred in line of duty in a 
combat zone or incurred during the performance of duty in combat-
related operation as designated by the Secretary of Defense. In 
adopting this provision, Congress relied on an existing definition of a 
combat-related disability (see 10 U.S.C. 1413a(e)). Rather than using 
the definition intended by Congress, the DOD adopted a more limited 
definition of combat related operations, requiring that the disability 
be incurred during participation in armed conflict.
    If confirmed, will you reconsider the Department's definition of 
combat-related operations for purposes of awarding enhanced severance 
pay and deduction of severance pay from VA disability compensation?
    Answer. If confirmed, I will review the rationale behind this 
decision to ensure that all wounded warriors are treated fairly.
                             family support
    Question. Throughout the global war on terrorism, military members 
and their families in both the Active and Reserve components have made 
tremendous sacrifices in support of operational deployments. Senior 
military leaders, however, have warned of growing concerns among 
military families as a result of the stress of frequent deployments and 
the long separations that go with them.
    What do you consider to be the most important family readiness 
issue for servicemembers and their families, and, if confirmed, what 
role would you play to ensure that family readiness needs are addressed 
and adequately resourced?
    Answer. I will have to look into this if confirmed, but I believe 
it may come down to building resiliency so that families are better 
prepared to meet the challenges of frequent moves and deployments--
including psychological, social, financial, and educational.
    Question. If confirmed, what would your priorities be for improving 
and sustaining quality of life for military members and their families?
    Answer. Maintaining robust quality of life programs for our 
military servicemembers is one of the highest priorities of the 
President-elect. If confirmed, I would make this one of the focus areas 
for the expedited review of the fiscal year 2010 budget request, as 
well as the QDR and the formulation of the fiscal year 2011 defense 
program. Areas of emphasis would be medical care and child care 
facilities and other programs that assist our servicemembers in 
sustaining the burden of deployments.
    Question. If confirmed, how would you ensure support for Reserve 
component families and Active Duty families who do not reside near a 
military installation?
    Answer. I am familiar with a general pattern of much-needed 
improvement here recently, through the implementation of partnerships 
with State and community based services. But I know we have much to do, 
and look forward to being involved in this, if confirmed.
              sustaining the military health care benefit
    Question. In your view, what elements of the military health care 
system require reform and what steps would you take, if confirmed, to 
accomplish reform?
    Answer. Health care costs continue to grow nationally and DOD is 
not exempt. If confirmed, I will work closely with our health care 
leadership in DOD to examine every opportunity to ensure military 
beneficiaries are provided the highest quality care possible in the 
most cost effective manner.
    Question. In light of the continuing growth of health care costs 
both in the military and civilian sectors, if confirmed, how would you 
address the issue of cost control?
    Answer. I am told that governmental estimates indicate these costs 
could rise to nearly 12 percent of the DOD budget in just a few years, 
and that the congressionally-directed task force on the future of 
military health care provided useful insights. If confirmed, I will 
look at all these alternatives to ensure that DOD provides quality care 
in an affordable manner.
    Question. What is your understanding of the requirements of 10 
U.S.C. section 1102(d) concerning the disclosure of medical quality 
assurance information?
    Answer. Section 1102 protects information about a specific provider 
or patient. However, I am told that these data can be released in an 
aggregate statistical manner to inform both military and non-military 
medical providers in advancing the resolution of systemic health care 
problems.
    Question. If confirmed, do you agree to provide information 
requested by the committee in order to exercise its legislative and 
oversight responsibilities concerning medical quality assurance?
    Answer. Yes.
                 national capital region medical issues
    Question. The BRAC 220 decision to consolidate the Walter Reed Army 
Medical Center and the National Naval Medical Center at Bethesda is one 
of the most significant realignments in the history of military 
medicine. The outgoing Deputy Secretary of Defense established a joint 
task force (JTF) charged with review of design, transition, staffing 
and operation of the new, consolidated medical center, integration of 
clinical services and medical education programs, and enhanced support 
for wounded warriors and their families.
    If confirmed, what steps would you take to ensure that the highest 
quality care is maintained for military beneficiaries and wounded 
warriors before, during, and after the transition to the new medical 
facility?
    Answer. Care for our wounded warriors is Secretary Gates' top 
concern, next to the war. I understand that DOD has set up a JTF to 
make sure high quality service is not terminated at one facility until 
a successor facility is fully ready. If confirmed, I look forward to 
evaluating measures to achieving that end.
    Question. How would you ensure that the new facilities and medical 
capabilities are achieved in the most effective and timely manner 
possible?
    Answer. Care for our wounded warriors is the Secretary's number one 
concern next to the war itself. Wounded warriors deserve the most 
current capabilities and facilities we can provide. I note that there 
is a robust effort now in place to improve and expand medical care in 
the NCR overseen by the JTF National Capital Region Medical (CAPMED). 
If confirmed, I will oversee and support the JTF CAPMED's efforts to 
ensure this effort achieves success.
                   national security personnel system
    Question. Section 1106 of the National Defense Authorization Act 
for Fiscal Year 2008 restored the collective bargaining rights of 
civilian employees included in the National Security Personnel System 
(NSPS) established by the DOD pursuant to section 9902 of title 5, 
U.S.C. Under section 1106, the Department retains the authority to 
establish a new performance management system (including pay for 
performance) and streamlined practices for hiring and promotion of 
civilian employees.
    What is your view of the NSPS, as currently constituted?
    Answer. I am generally familiar with the purpose and goals of NSPS, 
as well as the concerns expressed by Members of Congress and employee 
representatives. However, I have not reviewed the details of the 
system. If confirmed, I will conduct a thorough review of the program, 
in coordination with leadership from the Office of Personnel Management 
and other stakeholders, so I may gain a full understanding of the 
system.
    Question. If confirmed, how will you evaluate its success or 
failure to meet its goals?
    Answer. If confirmed, I will work with and seek the views of the 
appropriate stakeholders both within and outside the Department to gain 
a full understanding of NSPS and the extent to which it is meeting 
program goals and congressional intent. I am well aware of the 
important role civilian employees play in supporting the Department's 
critical mission, and I understand NSPS will be a priority issue for 
the Department.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. I have not had a chance to thoroughly examine the details 
of the NSPS pay-for-performance. If confirmed, I will review the entire 
system, including this component. I am mindful of the importance of 
good performance management in achieving organizational results, as 
well as the need for fairness and transparency in any civilian 
personnel system.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. Although I have not yet fully examined NSPS streamlined 
hiring and promotion authorities, I am mindful of the challenges faced 
by the Department and the Federal Government to attract and retain a 
high quality civilian workforce, particularly in light of the fact that 
a large portion of the Federal workforce is eligible to retire or 
nearing retirement eligibility. Given the important role of the DOD 
civilian workforce in supporting national security, our ability to 
compete for talent will become increasingly important. If confirmed, 
this will receive my early attention.
    Question. In your view, is it viable in the long run for the DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. If confirmed, I will conduct a full review of NSPS, 
including the status of the Department's implementation plan. The issue 
of maintaining two systems will certainly be a part of that review.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. I am not aware of any immediate need for legislative 
changes at this time. However, if confirmed, I will fully examine the 
program and confer with congressional stakeholders in assessing the 
need for any statutory changes.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. I understand the regulations jointly issued by the 
Department and the Office of Personnel Management provide much of the 
detail concerning NSPS. However, I have not had a chance to fully 
review those regulations or the NSPS program. If confirmed, I will make 
that an early priority.
                         human capital planning
    Question. Section 1122 of the National Defense Authorization Act 
for Fiscal Year 2006, as amended by section 1102 of the John Warner 
National Defense Authorization Act for Fiscal Year 2007 and section 851 
of the National Defense Authorization Act for Fiscal Year 2008, 
requires the Secretary of Defense to develop and annually update a 
strategic human capital plan that specifically identifies gaps in the 
Department's civilian workforce and strategies for addressing those 
gaps. DOD has not yet produced a strategic human capital plan that 
meets the requirements of these provisions.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. See below.
    Question. Do you see the need for any changes in the requirements 
of sections 1122, 1102, and 851, regarding the requirement for a 
strategic human capital plan?
    Answer. I have not had the opportunity to become familiar with this 
area. If confirmed, I will solicit views of others, including 
Secretaries of the Military Departments, and Under Secretary of Defense 
for Personnel and Readiness (USD(P&R)). I will ensure that we keep the 
committee abreast of our progress.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. If confirmed, I will work to support any objectives in this 
area.
                          all-volunteer force
    Question. The All-Volunteer Force came into existence over 35 years 
ago and, since its inception, volunteer soldiers, sailors, airmen, and 
marines have helped to win the Cold War, defeat aggression during the 
Persian Gulf War, keep peace in the former Yugoslavia, combat terrorism 
in Iraq and Afghanistan, and defend freedom around the world.
    Are you committed to the All-Volunteer Force?
    Answer. Yes.
    Question. Under what conditions, if any, would you support 
reinitiation of the draft?
    Answer. The Nation should certainly preserve that option, but 
whether and when to use it would be a momentous decision.
    Question. What factors do you consider most significant to the 
success of the All-Volunteer Force?
    Answer. The focus should be on supporting military servicemembers 
and their families. In addition to maintaining strong compensation 
programs, efforts such as assuring quality education for children and a 
meaningful career for the military spouse are high on the agenda of 
today's generation of military servicemembers.
    Question. What changes in pay, compensation, and benefits, if any, 
are needed in your view to sustain recruiting and retention?
    Answer. I will have to look into this more, if confirmed, but to 
achieve success we must treat people fairly in terms of compensation, 
benefits, and quality of life.
                          recruiting standards
    Question. Recruiting highly qualified individuals for military 
service and retaining highly trained and motivated personnel for 
careers present unique challenges, particularly while the Nation is at 
war. Criticism has been aimed at the Department for allowing relaxed 
enlistment standards in the Army with respect to factors such as age, 
intelligence, weight, and physical fitness standards, citizenship 
status, tattoos, and past criminal misconduct.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. See below.
    Question. In your view, does the Army have adequate procedures in 
place to ensure recruitment of only fully qualified individuals?
    Answer. I am not fully familiar with the details of the current 
service standards and procedures, but if confirmed, I would work 
closely with the USD(P&R) to review recruiting standards for all the 
Services.
    Question. What is your understanding of the status, cost (to date), 
and feasibility of implementation of the Defense Integrated Military 
Human Resources System (DIMHRS)?
    Answer. See below.
    Question. Do you believe that it is preferable to have a 
consolidated approach to human capital management systems for all four 
military Services, or to allow each of the Services to develop its own 
systems?
    Answer. I am not fully familiar with the details of DIMHRS and 
efforts to consolidate the Services' human capital management systems 
but, if confirmed, I plan to examine them closely.
                       detainee treatment policy
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location, shall be subject to cruel, 
inhuman, or degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. In my view, this prohibition is in the best interest of the 
United States. I also believe that the Department's leadership should 
always be mindful of multiple considerations when developing standards 
for detainee treatment, including the risk that the manner in which we 
treat our own detainees may have a direct impact on the manner in which 
U.S. soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you believe that the United States has the legal 
authority to continue holding alleged members and supporters of al 
Qaeda and the Taliban as enemy combatants?
    Answer. Yes. As a general matter, the United States is authorized 
to detain those individuals determined to be enemy combatants. I cannot 
comment on the circumstances of the detention of specific individuals, 
which, in many cases, is the subject of pending litigation.
    Question. Do you believe that the Combatant Status Review Tribunals 
convened by DOD to provide Guantanamo Bay, Cuba (GTMO), detainees an 
opportunity to contest designation as enemy combatants provide 
detainees with appropriate legal standards and processes?
    Answer. If I am confirmed, I expect that I and others will examine 
this issue carefully.
    Question. What role would you expect to play, if confirmed, in 
reviewing the status of GTMO detainees and determining whether the 
United States should continue to hold such detainees?
    Answer. At present the Deputy Secretary of Defense is delegated the 
responsibility to determine whether a GTMO detainee should be released 
or transferred, upon the recommendation of an Administrative Review 
Board. I anticipate that the new administration will review the current 
process and may make changes to it.
    Question. Do you support closing the detention facility for enemy 
combatants at GTMO?
    Answer. Yes. As both President-elect Obama and Secretary Gates have 
stated, the detention facility at GTMO has become a liability for the 
United States.
    Question. In order to mitigate the risk associated with the release 
of GTMO detainees, do you believe DOD should establish some form of 
rehabilitation training for enemy combatants held at GTMO?
    Answer. I understand that the efforts in Iraq to rehabilitate and 
reconcile detainees have been fairly successful. If confirmed, I would 
help explore whether such a program could be tailored appropriately and 
successfully implemented for the population at GTMO.
    Question. What other ways could the United States use to encourage 
or entice our allies or other nations to accept detainees from GTMO? 
Would monetary support or sharing of technology for monitoring 
detainees be helpful inducements?
    Answer. If confirmed, I would work closely with the State 
Department to seek new ways to encourage our allies and friends to 
assist us in transferring those detainees from GTMO who can be safely 
returned to their home countries or resettled in a third country when 
that is not possible.
    Question. The Military Commissions Act of 2006 authorized the trial 
of ``alien unlawful enemy combatants'' by military commission and 
established the procedures for such trials.
    In your view, does the Military Commissions Act provide appropriate 
legal standards and processes for the trial of alien unlawful enemy 
combatants?
    Answer. If confirmed, I intend to carefully confer with the 
Secretary and the OGC as to whether the Military Commissions Act 
strikes the right balance between protecting U.S. national security 
interests and providing appropriate legal standards and processes for a 
fair and adequate hearing.
    Question. Under what circumstances, if any, do you believe that it 
would be appropriate to use coerced testimony in the criminal trial of 
a detainee?
    Answer. If confirmed, I anticipate looking carefully with the OGC 
at whether use of coerced testimony is ever appropriate in the criminal 
trial of a detainee.
    Question. What role would you expect to play, if confirmed, in 
determining whether GTMO detainees should be tried for war crimes, and 
if so, in what forum?
    Answer. As I understand the current structure under the Military 
Commissions Act, the Convening Authority makes the decision on which 
cases are referred to a military commission. If confirmed, I anticipate 
reviewing with the OGC the current process to determine whether to 
recommend any changes to it.
    Question. What role would you expect to play, if confirmed, in 
reviewing the Military Commissions Act and developing administration 
recommendations for any changes that may be needed to that Act?
    Answer. If confirmed, I anticipate reviewing the Military 
Commissions Act with the OGC to determine whether to recommend any 
legislative proposals to change it.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. As we begin to transition detention operations and 
facilities to full Iraqi control, it is vital that we do our best to 
ensure that the increased quality of our facilities and our approach to 
detainee operations is maintained, as this line of operation is a 
critical component of successful counterinsurgency doctrine and 
practice.
    Question. What should be done to incorporate those lessons learned 
into DOD doctrine, procedures, and training for personnel involved in 
detention and interrogation operations?
    Answer. I believe that a lot of these lessons are being captured 
today, and are reflected in new doctrine and directives.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                          defense laboratories
    1. Senator Reed. Mr. Lynn, in your view, how does the quality of 
the Department of Defense (DOD) laboratories compare to the quality of 
the national laboratories and to industry and academic laboratories?
    Mr. Lynn. I view a healthy science and technology (S&T) program, 
which includes high-performing DOD laboratories, as important to the 
overall national security. We should view DOD laboratories as providing 
a dedicated set of capabilities for the Armed Forces; but the 
Department should work with other agency and university laboratories 
where it is the Nation's and Department's best interest. This includes 
the Department of Energy national laboratories, National Aeronautics 
and Space Administration research centers, the National Institute of 
Standards and Technology, as well as universities and industry. The mix 
of the strengths of all laboratories is important to DOD.

    2. Senator Reed. Mr. Lynn, what steps do you plan to take in terms 
of infrastructure improvement, management practices, and personnel 
authorities to empower laboratory directors to revitalize their 
institutions and perform their designated technology development 
missions?
    Mr. Lynn. The ability of the DOD laboratories to support the 
Department's missions through research and technology development is 
important for our national security. The Department must attract and 
retain a workforce that is competitive, with hiring mechanisms that 
provide flexibility to recruit the best, and a workforce environment 
that will retain and reward them. To this end, if confirmed, I will be 
evaluating the effectiveness of the existing personnel demonstration 
programs conducted at many of DOD's laboratories, the S&T Reinvention 
Laboratories, to identify which authorities have proven to be effective 
in addressing workforce recruitment, retention, technical 
qualifications and imbalances; improving laboratory quality and 
effectiveness; and assessing whether there are authorities or 
management approaches that DOD may choose to implement across its 
entire S&T workforce. If confirmed, I will also review other relevant 
authorities available to the Department to assess their effectiveness 
and identify new opportunities that may be available for the Department 
to pursue.

                        small business research
    3. Senator Reed. Mr. Lynn, do you feel the Department does an 
adequate job of accessing the innovation potential of our Nation's 
small advanced technology businesses?
    Mr. Lynn. I believe that the Department is doing a good job of 
accessing the innovation potential of small advanced technology 
businesses. I am told that DOD invests a significant part of its annual 
Research and Development (R&D) budget to access the innovation 
potential of our Nation's small advanced technology businesses, both as 
prime and subcontractors.
    Small businesses make a significant contribution towards our 
Nation's economic strength. The statistics on American small business 
show that they represent 99.7 percent of all employer firms, employ 
about half of all private sector employees, have generated 60-80 
percent of all new jobs over the last decade, and produce more than 
half of the nonfarm private Gross Domestic Product. In the technology 
sector, small businesses produce 13 times more patents per employee 
than large firms and hire 40 percent of all high tech (scientists, 
engineers, computer scientist) workers. (Source: Small Business 
Administration Frequently Asked Questions Sept. 2008.)
    Small businesses are important to our Nation's military strength. 
Small businesses offer such attributes as flexibility, agility, 
responsiveness, and lower operating costs. Small businesses are also 
one of the best sources of technological innovation, which the 
Department uses to develop solutions to meet the needs of the 
warfighter.
    I understand that the Small Business Innovation Research (SBIR) 
program is the Department's premier program focused on accessing small 
business innovation for the benefit of the warfighter. This program 
sets aside 2.5 percent of the Department's extramural R&D budgets in 
excess of $100 million for the program. In fiscal year 2007, the SBIR 
program awarded 2,849 contracts with a budget of $1.2 billion. Over 60 
percent of SBIR projects historically continue to receive funding from 
other sources as the innovative products migrate into defense and 
commercial applications. These statistics, as well as other tools for 
small businesses including sample proposals are available on the SBIR/
Small Business Technology Transfer Web site.

    4. Senator Reed. Mr. Lynn, what steps should the Department take to 
better involve small business in DOD research and acquisition efforts?
    Mr. Lynn. The Department has a good record of working with small 
businesses. In addition to contracting directly with small businesses, 
the Department encourages its prime contractors to offer small, 
innovative firms maximum possible opportunity to compete for government 
contracts.
    I understand that the Department is proactive in its efforts to 
involve small businesses in research and acquisition. Each military 
department and defense agency has an Office of Small Business Programs 
that advocates on behalf of small businesses and undertakes to ensure 
all statutory and regulatory requirements relating to small business 
contracting are met. These offices work with the acquisition community 
and industry to provide maximum practicable opportunities to small 
businesses. The Department's small business workforce sponsors and 
participates in numerous outreach and training activities to make small 
businesses aware of DOD research and acquisition contracting 
opportunities.
    If confirmed, it will be necessary for me to make an assessment of 
the current situation before making any recommendations for improving 
small business participation in the Department's research and 
acquisition efforts. This assessment would need to consider such 
matters as the long term, strategic goals to be achieved, through 
better involvement of small businesses, for both the warfighter and the 
taxpayer.

                manufacturing and industrial base issues
    5. Senator Reed. Mr. Lynn, how would you assess the health of our 
Nation's defense and technology industrial bases in terms of their 
ability to meet DOD near- and far-term needs?
    Mr. Lynn. Generally, my viewpoint is that our Nation's defense and 
technology industrial bases, while perhaps not as robust as they were 
before the world-wide wave of industrial consolidation that began in 
the mid-1990s, remain today and for the foreseeable future the most 
innovative, reliable, and cost-effective in the world. I believe this 
primarily because our defense and technology industrial bases continue 
to consistently develop, produce, and support militarily-superior 
defense systems that are the envy of the world. If confirmed, I would 
work to better sustain and leverage those bases by ensuring that DOD 
decisions and funding support the cost-effective creation and 
preservation of industrial and technological capabilities essential to 
defense; and increasing the Department's use of the highly-competitive 
commercial marketplace by encouraging use of dual-use technologies, 
processes, and materiel. Finally, I think that industrial globalization 
is a reality that the Department must address. Given the 
interconnectivity of supply chains, the Department's challenge is to 
leverage the benefits of the global commercial industrial base, while 
also recognizing and minimizing the risks in doing so.

    6. Senator Reed. Mr. Lynn, what steps should the Department take to 
strengthen the Nation's capacity to design, test, and manufacture 
weapons systems and other defense technologies?
    Mr. Lynn. In my opinion, the Department must better leverage its 
buying power via an acquisition system that effectively balances 
realistic requirements, stable/sufficient funding, and sufficient time 
to strengthen the Nation's capacity to design, test, and manufacture 
the world's most capable weapon systems and defense technologies. If 
confirmed, I would support the Department's current strategy to rely on 
market forces to the maximum extent possible to create, shape, and 
sustain the industrial and technological capabilities needed to provide 
for the Nation's defense. However, I think it is also important to 
recognize that the Department (through its budget, acquisition, and 
logistics processes) can create market forces capable of harnessing the 
innovation potential in the industrial/technological base. In addition, 
when it becomes necessary to intervene in the marketplace, the 
Department has tools available--for instance, the Defense Production 
Act Title III Program and the Manufacturing Technology Program--which 
help to focus industry attention on critical technology development, 
accelerate technology insertion into manufacturing processes, create or 
expand critical production facilities, and direct production capacity 
towards meeting the most urgent warfighter needs. Finally, I believe 
that the acquisition initiatives recently posed by Secretary Gates hold 
great promise in strengthening our Nation's defense industrial 
capabilities--i.e., freezing requirements earlier for proposed systems, 
improving production contracts, employing prototypes to learn more 
about competing proposals, planning better, and balancing rapid and 
lengthy acquisition timelines.

         importance of information sharing to national security
    7. Senator Reed. Mr. Lynn, the September 11 attacks illustrated a 
fundamental failure by our Government to share information effectively 
in order to detect and prevent the attack by ``connecting the dots.'' 
The 9/11 Commission identified 10 lost ``operational opportunities'' to 
derail the attacks. Each involved a failure to share information 
between agencies. In the aftermath of the September 11 attacks, major 
efforts have been made to improve information-sharing. Through 
legislation and Executive orders these efforts were designed to effect 
a ``virtual reorganization of Government'' with communities of interest 
working on common problems across agency boundaries and between 
Federal, State, and local governments, and the private sector. While we 
have established the necessary legal structures, I am concerned that 
implementation is lacking. What is your view on the importance of 
information-sharing to our national security and what steps will you 
take to improve the Government's ability to share information in a 
trusted environment?
    Mr. Lynn. Information-sharing is an important part of a whole-of-
government approach to combating terrorism and providing for national 
security. The right information must be shared at the right time not 
only with Federal, State, and local governments but also with 
international friends and allies. I will work to ensure the Department 
is committed to the trusted sharing of information with these key 
partners.

    8. Senator Reed. Mr. Lynn, in the wake of September 11, Congress 
and President Bush put enhanced information-sharing forward as a major 
goal by passing the Intelligence Reform and Terrorism Prevention Act of 
2004 and the 9/11 Commission Recommendations Implementation Act of 
2007. The information-sharing environment established by this 
legislation is designed to enable our Government to use information in 
new and more powerful ways. While improved information-sharing enhances 
our national security, it also presents the risk that the Government 
will use these powerful new authorities to acquire vast amounts of 
data. This has the potential to infringe on privacy and civil 
liberties. As the 9/11 Commission said, this increase in governmental 
power ``calls for an enhanced system of checks and balances.'' What 
steps will you take to ensure that, as information-sharing is enhanced, 
new and more powerful protections are developed to safeguard privacy 
and civil liberties and how will you help make sure that the American 
public trusts that the Government will respect their privacy?
    Mr. Lynn. The Nation's security should not require the abandonment 
of our values, privacy, or civil liberties. As Deputy Secretary of 
Defense, I will work to ensure that all matters within the full range 
of my authority are consistent with the Constitution and the law.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                    china's military transformation
    9. Senator Akaka. Mr. Lynn, our military has experienced strains 
after nearly 7 years of warfare. It is imperative that we support our 
forward-deployed forces engaged in current operations but we must not 
overlook other important developments in the international system. For 
example, China's continued investment in their military transformation 
has the potential to alter the balance of power in the Asia-Pacific 
region. In March 2007, Beijing announced a 19.47 percent increase in 
its military budget from 2006 to approximately $45.99 billion. In light 
of China's continued military modernization efforts, do you believe 
that U.S. forces in the Pacific Command are fully prepared to address 
any possible threats related to China's modernization, particularly 
with regards to Pacific Command's forward basing requirements?
    Mr. Lynn. Forward basing of U.S. forces and alliance capabilities 
are important during peacetime and crisis. As such DOD has undertaken a 
series of force realignments in Korea, Japan, and Guam, including the 
forward-basing of the George Washington to Japan. These posture 
realignments will position our forces in the Pacific to be more fully 
prepared to address any military contingency in the Asia-Pacific 
region, including those that may involve China. Basing, posture, and 
future capabilities are important issues that DOD should address 
further in the Quadrennial Defense Review (QDR).
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
   survivor benefit plan/dependency and indemnity compensation offset
    10. Senator Bill Nelson. Mr. Lynn, for 8 years I have worked to 
eliminate the unjust offset between the DOD Survivor Benefit Plan (SBP) 
and the Department of Veterans Affairs Dependency and Indemnity 
Compensation (DIC). Under current law, if the surviving spouse of a 
servicemember is eligible for SBP, that annuity is offset by the amount 
of DIC received. I would like to work with DOD to devise a plan to 
eliminate the offset over time; it is the least we can do for the 
widows, widowers, and orphans of our servicemembers. What is the proper 
balance of discretionary and mandatory spending that will not only 
ensure our national defense, but will also take care of our 
servicemembers, veterans, and their families?
    Mr. Lynn. While I have not yet had an opportunity to be briefed on 
this subject, it's important to be fair to our veterans' and their 
surviving family members. If confirmed, I will look into this area to 
ensure our veterans and their families are treated fairly.

    11. Senator Bill Nelson. Mr. Lynn, what would a plan look like that 
would eliminate the SBP-DIC offset over 4 years and over 10 years?
    Mr. Lynn. As noted in the answer to the prior question, I will need 
to explore this subject more fully with the goal of ensuring our 
veterans and their families are treated fairly.

                base realignment and closure commission
    12. Senator Bill Nelson. Mr. Lynn, in November 2005, the Base 
Realignment and Closure Commission (BRAC) of 2005 went into effect. 
Full funding of BRAC 2005 is imperative because the Services must build 
infrastructure to support the mandated force movements. Two BRAC 2005 
conclusions that affect Florida are the establishment of Initial 
Aircraft Training for the F-35 Lightening II Joint Strike Fighter and 
the beddown of the 7th Special Forces Group at Eglin Air Force Base. 
The BRAC 2005 law expires in 2011. Explain how DOD will support the 
Services' funding requests necessary to implement the BRAC 2005 law 
before expiration of the BRAC 2005 mandate.
    Mr. Lynn. While I am not yet familiar with the budget details of 
the Services, it is my understanding the Department has tasked the 
applicable components to fully fund all BRAC 2005 actions to meet the 
September 15, 2011 deadline.

     navy decision to establish a second aircraft carrier homeport
    13. Senator Bill Nelson. Mr. Lynn, in 2006, the Navy began an 
environmental impact statement to determine the environmental impact of 
homeporting additional surface ships at Naval Station Mayport, FL. 
Since 2005, congressional and military leadership have reaffirmed the 
importance of dispersing the Atlantic Fleet in two ports. In February 
2005, then Chief of Naval Operations, Admiral Clark, stated that it was 
his view that, ``over-centralization of the [carrier] port structure is 
not a good strategic move . . . the Navy should have two carrier-
capable homeports on each coast.'' He went on to say, ``. . . it is my 
belief that it would be a serious strategic mistake to have all of 
those key assets of our Navy tied up in one port.''
    Deputy Secretary of Defense Gordon England, as the former Secretary 
of the Navy, testified to the Senate Armed Services Committee that the 
Navy needed to disperse its Atlantic coast carriers: ``My judgment is 
that [dispersion] is still the situation . . . a nuclear carrier should 
be in Florida to replace the [U.S.S. John F.] Kennedy to get some 
dispersion.''
    The current Chief of Naval Operations, Admiral Roughead, 
recommended to Secretary of the Navy Winter that Naval Station Mayport 
should be made capable of homeporting a nuclear aircraft carrier 
homeport to reduce the risk to our Atlantic Fleet carriers should 
Norfolk become incapacitated. The current Chairman of the Joint Chiefs 
of Staff, Admiral Mullen, agrees with Admiral Roughead's 
recommendation.
    On January 14, the Navy made its decision to make Naval Station 
Mayport a carrier homeport and plans to request the necessary funding 
for its implementation in its fiscal year 2010 budget request. 
Understanding the fiscal challenges facing our country and the 
constrained defense budget, how will you approach this funding priority 
among the many priorities facing the military?
    Mr. Lynn. I have not yet had the opportunity to explore the details 
of this move. However, if confirmed, I will examine this decision and 
its impact on the fiscal year 2010 POM to ensure the Department's 
strategy and funding match.

    14. Senator Bill Nelson. Mr. Lynn, the principle of strategic 
dispersal is decades old. What is your understanding of the principle 
of strategic dispersal and what are your thoughts of Secretary of the 
Navy Donald Winter's implementation of this principle with respect to 
Naval Station Mayport?
    Mr. Lynn. Strategic dispersal is a protective measure that allows 
forces to be less vulnerable to a single critical attack. However, in 
many cases dispersal also increases costs by reducing economies of 
scale. If confirmed, I will seek to strike a balance of developing an 
effective basing strategy that the Department can afford.

                sexual assaults in iraq and afghanistan
    15. Senator Bill Nelson. Mr. Lynn, untold numbers of sexual 
assaults have been committed in Iraq and Afghanistan by executive 
branch contractors and employees. In 2007, I sent letters regarding 
sexual assault to the Secretaries of Defense and State and the Attorney 
General. On December 13, 2007, I wrote to Secretary of Defense Gates, 
requesting that he launch an investigation by the Defense Department's 
Inspector General (DOD/IG) into rape and sexual assault cases in Iraq 
and Afghanistan. Following my letters, the DOD/IG stated that the Army 
Criminal Investigation Command (CID) investigated 41 sexual assaults in 
Iraq in 2005, 45 sexual assaults in 2006, and 38 sexual assaults in 
2007. These numbers are limited to only 3 years worth of investigations 
by the Army in Iraq. They do not include investigations for both 
theaters of operations nor all the Services operating in Iraq and 
Afghanistan. Consequently, there could be many additional 
investigations and assaults that have not been investigated. Also, 
because the DOD/IG would not provide information on the status of its 
investigations, it remains unclear how many of these cases have been 
prosecuted and/or processed within the military or criminal justice 
systems. If confirmed, how will you work with your counterparts at the 
Departments of State, Justice, and other executive branch departments 
with regard to contractor crimes in Iraq and Afghanistan?
    Mr. Lynn. Sexual assault is a crime and an affront to our values. 
The Department recognizes even one sexual assault is too many and in 
2004 established the DOD Sexual Assault and Prevention Office to 
provide policy and procedures to address the issues encountered by 
victims of sexual assault worldwide. If confirmed, I will continue to 
support the Office of the General Counsel in their efforts to 
coordinate with other Federal agencies to ensure the criminals 
perpetrating these acts are prosecuted.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                      troop levels in afghanistan
    16. Senator Bayh. Mr. Lynn, as the U.S. military continues to draw 
down our forces in Iraq, how does the new administration propose to 
balance the needs of maintaining security in Iraq with its pledge to 
increase our troop levels in Afghanistan by as many 30,000 
servicemembers?
    Mr. Lynn. The Department must continue to listen to the assessments 
of our military commanders in the field, United States Central Command, 
and the Joint Chiefs of Staff to develop and provide the President the 
right options. Getting troop levels in Iraq and Afghanistan right is a 
critically important issue that, if confirmed, I will follow closely.

    17. Senator Bayh. Mr. Lynn, how do these requirements square with 
the readiness levels and operational tempo we have demanded of our 
troops?
    Mr. Lynn. Our force's current operational tempo and associated 
readiness levels present a continuing challenge for the Department. 
Rotation timelines, increased allied contributions, and a strong 
interagency plan must all be considered to properly meet current and 
future taskings. Current plans to increase the Army and Marine Corps 
would also help reduce these pressures.

                   resources for iraq and afghanistan
    18. Senator Bayh. Mr. Lynn, according to the recently signed Status 
of Forces Agreement with Iraq, American combat troops will begin 
leaving Iraq very soon. How do you plan to address the significant need 
for equipment recapitalization and reset while also weaning the 
Department off of supplemental budget requests?
    Mr. Lynn. As the Department addresses the fiscal year 2010 budget, 
recapitalization and reset are part of a wide span of important 
requirements that must be balanced. This process will present many 
tough choices for DOD leadership as they respond to the economic 
environment.

    19. Senator Bayh. Mr. Lynn, what risks does DOD face by continuing 
to rely so heavily on the supplemental process?
    Mr. Lynn. Supplemental appropriations are an important tool for the 
government to respond to contingency requirements. But the core defense 
budget needs should proceed through the normal authorization and 
appropriations process to ensure proper balance and appropriate 
oversight.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                      troop levels in afghanistan
    20. Senator McCain. Mr. Lynn, General McKiernan has spoken of 
increasing U.S. troops in Afghanistan by something on the order of four 
combat brigades. Do you support this request?
    Mr. Lynn. Secretary Gates has highlighted the current troop 
shortfalls in basic security and training in the face of an 
increasingly active Taliban. At current levels, our forces are 
challenged to provide a foundation of security while at the same time 
supporting our broader efforts to train Afghan security forces. The 
Department needs to examine General McKiernan's request in that 
context.

    21. Senator McCain. Mr. Lynn, would increasing the number of troops 
in Afghanistan require us to draw down in Iraq faster than we otherwise 
might?
    Mr. Lynn. If confirmed, I will assist Secretary Gates in his review 
of possible options to provide to the President.

    22. Senator McCain. Mr. Lynn, how large do you believe the Afghan 
National Army (ANA) and the Afghan National Police (ANP) should 
ultimately be?
    Mr. Lynn. Both the Government of Afghanistan and the international 
community have agreed an increase in Afghan security forces is required 
for the Afghans to assume primary responsibility for their own 
security. This planned expansion would bring the ANA to 134,000 and the 
ANP to 82,000. It is not yet clear whether these levels will be 
sufficient over the long run. The ultimate number will require 
continued assessment and evaluation to determine.

                      nato support in afghanistan
    23. Senator McCain. Mr. Lynn, the Afghanistan mission is an 
important test of the North Atlantic Treaty Organization's (NATO) out-
of-area capability. Yet, NATO commanders continue to have difficulty 
persuading allies to contribute forces to International Security 
Assistant Force or to provide NATO forces the appropriate equipment for 
their tasks. Secretary Gates testified last year that he is worried 
about the alliance evolving into a two-tiered alliance, in which you 
have some allies willing to fight and die to protect people's security, 
and others who are not. How do you assess the contributions of NATO 
allies to the war in Afghanistan?
    Mr. Lynn. NATO and other non-NATO partner nation contributions, 
both military and civilian, are an important component of the 
international mission in Afghanistan. While NATO contributions have 
increased over time, their growing involvement will continue to play a 
pivotal role in the stabilization and security of Afghanistan.

    24. Senator McCain. Mr. Lynn, what steps would you recommend to 
persuade NATO nations to increase their efforts in concert with our 
own?
    Mr. Lynn. NATO and other international contributions are an 
important component of the international mission in Afghanistan. If 
confirmed, I will examine future strategy options in part for their 
proposed steps to increase partner contributions.

                             guantanamo bay
    25. Senator McCain. Mr. Lynn, President-elect Obama has said he 
wants to close the military detention facility at Guantanamo Bay 
(GTMO). If confirmed, how would you go about executing the President-
elect's policy? How would you approach this challenge?
    Mr. Lynn. As both President Obama and Secretary Gates have stated, 
the detention facility at GTMO has become a liability for the United 
States. If confirmed, I would work closely with the State Department to 
seek new ways to encourage our allies and friends to assist us in 
transferring those detainees from GTMO who can be safely returned to 
their home countries or resettled in a third country when that is not 
possible.

                        active-duty end strength
    26. Senator McCain. Mr. Lynn, the President-elect and the Secretary 
of Defense have endorsed significant increases in the Active-Duty 
strengths of the Army and Marine Corps and these Services have been 
working hard to accelerate this growth. Please discuss your concerns 
about the rising cost of personnel and how you anticipate this will 
affect the ability of the Services to recapitalize its equipment.
    Mr. Lynn. All of our servicemembers, Active and Reserve, continue 
to perform extraordinarily in light of the demands we have placed upon 
them. However, as the President has stated, we do believe increases in 
our ground forces are necessary. Moreover, we cannot fail to have the 
right numbers and kinds of uniformed personnel to win our wars, and to 
deter potential adversaries. While our force, Active and Reserve, must 
be large enough to satisfy deployment needs, there must be a base that 
recognizes the personal needs of our volunteers and their families. At 
the same time, our volunteers must have the weapons, equipment and 
support that will enable mission success. Striking the right balance 
between personnel, recapitalization, and operational and support costs 
is a challenging imperative that will be central to the fiscal year 
2010 budget and the QDR. We look forward to working with Congress.

    chief of the national guard bureau and the joint chiefs of staff
    27. Senator McCain. Mr. Lynn, do you think the Chief of the 
National Guard Bureau should be a member of the Joint Chiefs of Staff? 
Why or why not?
    Mr. Lynn. In recognition of its increased role in recent years, the 
Chief of the National Guard Bureau was raised to a four-star position 
in December 2008. If confirmed, I will evaluate this very recent 
adjustment over time before recommending further changes in the Joint 
Chiefs of Staff structure.

                retirees and the cost of dod health care
    28. Senator McCain. Mr. Lynn, for the last 3 years, the 
administration has tried--without success--to gain approval for 
increases in the annual premiums for DOD-provided health care paid for 
by military retirees under the age of 65. What are your views about the 
need for change in this regard?
    Mr. Lynn. The amount of funding budgeted for healthcare must be in 
balance with all of the other essential requirements that must be 
funded in the DOD budget. DOD established the Task Force on the Future 
of Military Healthcare in accordance with the provisions of the NDAA 
for Fiscal Year 2007. The Task Force reviewed several aspects of 
military healthcare including ``the beneficiary and government cost 
sharing structure'' and provided recommendations to promote the 
provision of quality, cost-effective healthcare for DOD beneficiaries. 
I will utilize the Task Force's recommendations as a reference when 
evaluating the benefit and government cost-sharing options for 
implementation to ensure that DOD continues to provide quality care in 
a manner that also provides the best value for our servicemembers and 
our Nation.

                    funding for wounded warrior care
    29. Senator McCain. Mr. Lynn, in your answers to pre-hearing policy 
questions you indicated that you will supervise the development of the 
Department's 2010 budget submission. I urge you to pay particular 
attention to funding of wounded warrior care and research. Congress has 
provided significant increases in funding for traumatic brain injury 
(TBI) and post-traumatic stress disorder (PTSD) research and treatment, 
as well as programs critical to supporting family needs, through 
supplemental appropriations. These conditions are enduring requirements 
in support of warfare, and far too important to rely on supplemental 
appropriations. Will we see the Department's full funding requirements 
for TBI and PTSD in the budget which you develop and submit to Congress 
in March or April of this year?
    Mr. Lynn. I certainly agree that funding for wounded warrior care 
and research, such as that which was provided through prior 
supplemental appropriations, is an important priority for DOD. If 
confirmed, I will personally review the fiscal year 2010 budget to 
ensure that wounded warrior care is funded appropriately.

                             ``soft power''
    30. Senator McCain. Mr. Lynn, Secretary Gates has called on 
Congress to provide more funding for the State Department's Foreign 
Service and the U.S. Agency for International Development. Just a few 
days ago, Admiral Mullen expressed the same views commenting that our 
national security and foreign policy requires ``a whole-of-government 
approach to solving modern problems'' and ``we need to reallocate roles 
and resources in a way that places our military as an equal among many 
in government--as an enabler, a true partner.'' Admiral Mullen went on 
to say that ``as an equal partner in government, I want to be able to 
transfer resources to my other partners when they need them.'' What 
thoughts do you have on these remarks calling for more resources for 
civilian agencies responsible for ``soft power,'' including the 
Departments of State, Justice, Commerce, and Agriculture?
    Mr. Lynn. A successful whole-of-government approach requires 
greater investment in our non-military instruments of power. Our 
civilian institutions need to have the will and capacity to support 
more integrated approaches for national strategies to be effective.

    31. Senator McCain. Mr. Lynn, should Congress provide greater 
flexibility for the military to transfer funding during a crisis?
    Mr. Lynn. More flexible spending authorities would allow the 
Department to be more responsive and adaptable during a crisis.

                    cyber security and cyber threats
    32. Senator McCain. Mr. Lynn, the United States heavily depends on 
our cyber-infrastructure--possibly more than any other nation. What do 
you think the greatest threat to the United States is in terms of cyber 
security and cyber threats?
    Mr. Lynn. Our ability to conduct business, communicate, and operate 
through cyberspace is one of our Nation's greatest strengths. Indeed, 
the United States does depend upon cyberspace and its associated 
information technology infrastructure. DOD relies upon global data and 
telecommunication networks, much of which is owned and operated by the 
commercial sector, to conduct full spectrum land, sea, air, and space 
operations. Adversaries could potentially acquire a capability to deny 
or disrupt the Department's access to those networks, or impact 
operations by diminishing our confidence in the reliability of those 
networks. Bad actors in cyberspace can range from insider threats to 
malicious hackers, criminal organizations to nation-states. Although 
nation-states can invest greater resources and acquire more 
sophisticated capabilities than non-state actors, all are a cause for 
concern. As Estonia experienced in 2007, it only takes a small but 
committed group of malicious hackers to bring a technologically 
sophisticated government to a standstill. Threats to cyber-
infrastructure are not solely through cyberspace, we must maintain 
awareness of physical vulnerabilities to key communications nodes, 
electrical power sources, satellite or ground relay links, and 
underground or undersea cables. The range of potential adversaries is 
such that there is no ``greatest'' threat, only the enduring need to 
remain vigilant, and continually improve security, reliability, and 
resiliency of our critical information networks.

    33. Senator McCain. Mr. Lynn, how is DOD organized to address cyber 
threats?
    Mr. Lynn. Commander, U.S. Strategic Command (CDRUSSTRATCOM) has the 
DOD lead for cyberspace operations per the 2008 Unified Command Plan. 
CDRUSSTRATCOM has designated Commander, Joint Functional Component 
Command--Network Warfare (JFCC-NW), as the lead for the planning, 
integration, and, as directed, execution of the full spectrum of 
military cyberspace operations. The Director of the National Security 
Agency is dual-hatted as Commander, JFCC-NW. Joint Task Force--Global 
Network Operations (JTF-GNO) is under the operational control of JFCC-
NW. The Director of the Defense Information Systems Agency is dual-
hatted as Commander, JTF-GNO. CDRUSSTRATCOM has designated JTF-GNO as 
the lead for directing the operation and defense of the Department's 
Global Information Grid. In addition, the Department is a major 
partner, as well as a key enabler of the Comprehensive National 
Cybersecurity Initiative, working closely with interagency partners to 
provide support to efforts aimed at securing U.S. Government networks 
and the national cyber infrastructure.

    34. Senator McCain. Mr. Lynn, is the current structure adequate to 
address this threat?
    Mr. Lynn. I consider your question to be of utmost importance to 
DOD and to the Nation. As a nominee for the Deputy Secretary of 
Defense, I will refrain from answering this question because I do not 
have the proper insights into this complex question. I can tell you 
however, that if confirmed, I will address this critical issue to 
determine if DOD is optimally structured and organized to conduct a 
wide range of cyber missions now and into the future.

                      defense business board view
    35. Senator McCain. Mr. Lynn, the Defense Business Board (DBB), an 
internal management oversight board established by Secretary Gates, 
recently warned that the Defense Department's budget is 
``unsustainable'' and that the Department can only meet its priorities 
if it makes hard budget decisions on its largest and costliest 
acquisition programs. ``Business as usual [in terms of the Department's 
budget decisions] is no longer an option,'' warned the Board. Do you 
agree with the DBB's warning?
    Mr. Lynn. Yes, business as usual is no longer an option. President 
Obama and Secretary Gates have underscored that change is needed and 
vowed to make acquisition reform a top priority.

    36. Senator McCain. Mr. Lynn, what principles will guide your 
thinking on possible cuts to large acquisition programs?
    Mr. Lynn. Acquisition programs must be able to deliver the required 
capability on schedule and at or under cost. The capabilities they 
provide must not be duplicative of other acquisitions, and these 
capabilities must be integral components of the overall portfolio of 
capabilities that the Department needs to accomplish its mission. We 
will review programs to ensure that they have the required 
technological and production maturity to enable successful delivery of 
the required capability to the warfighter according to schedule, and at 
cost. Programs lacking this maturity may be candidates for termination 
or restructure, depending on their potential contributions to our 
mission accomplishment. Cuts to large acquisition programs will also be 
evaluated against the capabilities they provide to ensure 
accomplishment of the Department's mission to defend our Nation, its 
interests, and our allies. We will review acquisitions to determine 
which best address requirements of near-term engagements and current 
known threats, and fund the highest priority acquisition programs that 
address these areas. At the same time, we will also ensure that we do 
not neglect the need for increased capabilities to meet increased or 
new threats in the future. As standard practice, we will align our 
acquisitions to stay within our funding topline and always strive to 
get the best value for our resources.

                            f-22a decisions
    37. Senator McCain. Mr. Lynn, early this year, this administration 
will be required to make what amounts to a go/no-go decision on the F-
22A Raptor program, an increasingly expensive program that has made no 
contribution to the global war on terror and that may impinge on the 
timing and cost of when the F-35 Joint Strike Fighter may first be 
operationally capable. Do you have any preliminary thoughts on whether 
the F-22A program should be continued or should be wound down as 
originally planned?
    Mr. Lynn. The F-22A Raptor is the most advanced tactical fighter in 
the world and, when combined with the F-35 Joint Strike Fighter, will 
provide the Nation with the most capable and lethal mix of 5th 
generation aircraft available for the foreseeable future. The 
tremendous capability of the F-22A is a critical element in the 
Department's overall tactical aircraft force structure requirements. 
The Department is reviewing whether to procure more F-22A aircraft 
beyond its current Program of Record quantity of 183 and will make a 
recommendation to the administration in time to meet the requirements 
stipulated in section 134 of the National Defense Authorization Act for 
Fiscal Year 2009.

    38. Senator McCain. Mr. Lynn, what principles will guide the 
Department's thinking on that matter?
    Mr. Lynn. The Department is currently reviewing whether to procure 
more F-22A aircraft beyond its current Program of Record quantity of 
183. Some of the factors that will go into the Department's 
recommendation to the administration are: compliance in meeting the 
requirements of the current National Military Strategy; affordability 
of additional F-22A aircraft within the Department's resource 
constrained environment; and whether continued production or 
termination is in the national interest of the United States.

               reforms for procurement of weapons systems
    39. Senator McCain. Mr. Lynn, over the last few years, this 
committee has developed several legislative initiatives intended to 
reform the process by which the Department buys its largest and most 
expensive weapons systems. The preponderance of those initiatives have 
addressed acquisition policy and the requirements system. Are there any 
aspects of acquisition policy, the requirements-determination system, 
or the resource allocation process that you believe require additional 
reform?
    Mr. Lynn. One issue the Department faces in regard to buying weapon 
systems is creating program stability. There are critical linkages 
among the requirements generation, acquisition management, and 
programming and budgeting systems. To achieve effective outcomes, all 
three systems must be aligned so that once a corporate commitment is 
made to developing a material solution that achieves a needed 
capability the development process is not destabilized by changes in 
requirements, immature technology, or budget adjustments. To stabilize 
programs, DOD must perform the necessary analysis, technology 
development, and cost estimating so sufficient knowledge is available 
to allow informed decisions to move into development. Over the years, 
DOD has implemented several reforms to improve program stability. For 
example, DOD has created Configuration Steering Boards to manage 
requirements changes and directed competitive prototyping to mature 
technology. The Department will continue to emphasize the need to 
perform adequate upfront planning prior to development. More work needs 
to be done on funding stability. Congress has helped by emphasizing 
certifications that focus on assessing need, priority, and funding. 
Now, DOD must find a way to eliminate perturbations in high priority 
programs that are well-managed.

    40. Senator McCain. Mr. Lynn, the Department recently instituted 
several reforms to the Defense Department Instructions on how the 
Defense Acquisition System (DAS) operates. Those initiatives seek to 
start major acquisition programs off responsibly by increasing emphasis 
on systems engineering and greater upfront planning and management of 
risk, as well as utilization of competitive prototyping in a newly-
named Technology Development Phase (before Milestone B). Are there any 
aspects of those newly instituted instructions (or the newly structured 
DAS) with which you have difficulty or intend to modify or repeal?
    Mr. Lynn. I believe the general direction of the new policies is 
sound. The Department should stay committed to achieving improved 
acquisition outcomes by reducing risk, and improving process 
discipline. If confirmed, I plan to closely monitor the execution of 
these policies and review whether any modifications are appropriate.

    41. Senator McCain. Mr. Lynn, among the reforms that this committee 
and the Department have instituted include those that enable the 
Department to remove more effectively non-essential requirements; have 
the Department move towards employing fixed-type contracts while better 
incentivizing contractor performance; and require the Department to 
exercise better oversight of service contracts. Are there any aspects 
of those initiatives in particular with which you have difficulty or 
intend to modify or repeal?
    Mr. Lynn. I believe these can be effective initiatives. If 
confirmed, I will monitor these policies to ensure the Department is 
providing the right level of oversight to maximize our acquisition 
outcomes.

    42. Senator McCain. Mr. Lynn, the current estimate for the costs to 
relocate the marines from Okinawa to Guam is at least $10 billion, with 
the Government of Japan directly contributing $2.8 billion. The 
remainder will be funded by DOD through military construction or loans 
paid back through future housing allowances. With all the other 
modernization, recapitalization, and reset requirements facing the 
Department in the next 4 years, in your opinion, can we afford this 
move?
    Mr. Lynn. Secretary Gates has spoken to the strategic importance of 
this relocation initiative in terms of our regional deterrent posture 
and our key alliance relationship with Japan. These are long-term 
investments in our enduring regional interests. The Department will 
ensure fiscal discipline is exercised throughout the duration of the 
effort, both with respect to U.S. appropriated funds and with respect 
to the $6.09 billion of funding our Japanese ally is providing.

    43. Senator McCain. Mr. Lynn, there has also been discussion about 
the significant investment necessary to upgrade port, road, and utility 
infrastructure on Guam to support the stationing of marines and their 
families. Do you believe DOD should assume this financial obligation as 
well?
    Mr. Lynn. The Department recognizes the necessary investment 
associated with port, roads, and utility infrastructure on Guam 
resulting from the Marine relocation. It is critical to thoroughly 
evaluate the broad Federal impact of this significant investment and 
partner with other Federal entities, such as the Guam Federal 
Interagency Task Force, to determine the financial obligation that the 
United States should assume for infrastructure on Guam. The Department 
is addressing Guam's needs that are directly related to maintaining an 
enduring presence in support of the military mission.
    Guam's infrastructure, namely the commercial port and the island's 
road network, require upgrades that will directly assist our ability to 
carry out the program and also benefit Guam. The Department, through 
the Defense Access Road program, is preparing to address qualifying 
improvements to roadways, intersections, and bridges that are critical 
to executing the construction program for DOD.
    The Maritime Administration (MARAD) was designated the lead Federal 
agency for the Port of Guam Improvement Enterprise Program in Public 
Law 110-417, section 3512. As the lead Federal agency, the MARAD will 
manage the expenditure of Federal, non-Federal, and private funds made 
available for the project and provides oversight and project management 
through a prime contractor. The DOD is working closely with MARAD to 
help facilitate their initiative to correct the issues at the port.
    DOD is also working to facilitate the necessary utilities solutions 
that will: meet the DOD mission; provide the widest benefit to the 
people of Guam; be technically and financially supportable by all 
participating parties; and be acceptable to the environmental 
regulators. DOD is working in collaboration with GovGuam officials to 
understand their needs and to determine the feasibility of utilities 
solutions that are mutually beneficial to DOD, the civilian community 
and the regulatory agencies. Additionally, we are working with the 
Government of Japan to ensure that their equities are met in 
conjunction with the DOD's needs and the equities of the Government of 
Guam and the Consolidated Commission on Utilities. Concurrently, we are 
working with the environmental regulators to ensure that the solution 
set meets the requirements set by the regulatory standards.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
                nuclear weapons surety and the new triad
    44. Senator Martinez. Mr. Lynn, on August 30, 2007, a B-52 bomber 
mistakenly loaded with six nuclear warheads flew from Minot Air Force 
Base, ND, to Barksdale Air Force Base, LA. Following the Defense 
Science Board's Permanent Task Force on Nuclear Weapons Surety and the 
two part Secretary of Defense's Task Force on DOD Nuclear Weapons 
Management, there are numerous recommendations and issues which need to 
be addressed over the next administration. How will you implement the 
panels' recommendations and how else will you provide our deterrence 
with the oversight and leadership it deserves?
    Mr. Lynn. I take this issue very seriously. Senior leader oversight 
and governance is vital to the success of our nuclear weapons 
enterprise and strategic deterrence. If confirmed, I will work with 
Secretary Gates to continue his efforts to strengthen deterrence and to 
sustain our high standards for safeguarding and storing nuclear 
weapons. I am committed to working with the Secretary to assess panel 
recommendations and to prepare an action plan for those 
recommendations.

    45. Senator Martinez. Mr. Lynn, the 2008 National Defense Strategy 
references the 2002 Nuclear Posture Review's New Triad in saying ``the 
New Triad remains a cornerstone of strategic deterrence''; however, 
there is no central plan for the ``New Triad''. With increasing 
military requirements, draw-downs in nuclear warhead numbers, and 
limited follow-on programs to replace an aging deterrent, how do you 
see the future of our Strategic Triad?
    Mr. Lynn. Congress has directed DOD to conduct a Nuclear Posture 
Review in 2009. This effort will provide an opportunity to review these 
critical questions and develop a consensus on the way forward. I expect 
senior officials in OSD Policy will guide these efforts, in 
coordination with other senior officials in DOD, as well as those in 
the Departments of Energy and State. If confirmed, I would expect to 
take an active role in this review, and to consult with members of this 
committee on its results and implications once completed.

                               preemption
    46. Senator Martinez. Mr. Lynn, both the 2008 National Defense 
Strategy and the 2006 National Security Strategy reference the act of 
preemption. Where do you see the line drawn between preemption and 
aggression? How will you ensure the legislature is correctly informed 
of military action with enough time for substantive thought and debate?
    Mr. Lynn. It is impossible to foresee the nature of all the future 
threats against the United States and its allies. While the United 
States does not seek conflict with others, the Nation has a 
responsibility to its people to provide for their defense. In each 
case, the elements in the decision to use force will likely be unique. 
Close consultation with Congress will be important any time the United 
States is faced with an imminent threat.

            strategic dispersal of the nuclear carrier fleet
    47. Senator Martinez. Mr. Lynn, carriers have been homeported in 
two east coast bases since the arrival of the U.S.S. Tarawa (CVS-40) in 
Ribault Bay in 1952. Admiral Mullen as Chief of Naval Operations on the 
record before the Senate Armed Services Committee stated that he was 
``very supportive of strategic dispersal of our carriers'' as well as 
his predecessor Admiral Vern Clark stated in February 2005 that ``It is 
[his] belief that it would be a serious strategic mistake to have all 
of those key assets of our Navy tied up in one port.'' Gordon England 
as Secretary of the Navy stated before the committee that his 
``judgment is that dispersion is still the situation. A nuclear carrier 
should be in Florida to replace the U.S.S. John F. Kennedy to get some 
dispersion.'' Even more recently Secretary Donald Winter with the 
concurrence of the current Chief of Naval Operations, Admiral Gary 
Roughead, signed the Record of Decision to upgrade Mayport to being 
nuclear ready, continuing the Navy's 47 year history of east coast 
strategic dispersal. Please state for the record, that, if confirmed as 
Deputy Secretary of Defense, your intentions will be to continue to 
strategically disperse the Nation's nuclear aircraft carriers along the 
east coast. If you disagree with the previous three Chiefs of Naval 
Operations, specifically outline why you would go against the uniformed 
members' recommendations.
    Mr. Lynn. Although I am aware of this issue, I have not yet been 
briefed on it. I expect to examine this issue and consult with the 
Navy, the Joint Staff, and members of this committee.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                              shipbuilding
    48. Senator Collins. Mr. Lynn, in your answers to the advance 
policy questions, you stated that you want to work with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, as 
well as the Service Assistant Secretaries for Acquisition, in 
developing a better acquisition process, that balances the need to meet 
requirements in a timely manner and delivering major weapons systems as 
cost effectively as is possible. In one of your answers you stated that 
one of your themes would be greater stability. A stable industrial base 
and predictable levels of funding are critical to achieving cost 
projections. As has been evident in the shipbuilding industry, the lack 
of a stable, fully-funded shipbuilding plan has put a tremendous burden 
on our Nation's shipbuilders. While I applaud Secretary Winter and 
Admiral Roughead for continuing to state that the Navy's goal is a 313-
ship fleet, I was very concerned with their decision last summer to 
change, without any consultation with Congress, the Navy's shipbuilding 
plan. Our shipyards make strategic decisions based upon long-term plans 
and, such sudden changes have significant impacts, one of which is 
cost. If confirmed, what will you do to help stabilize our country's 
industrial base for shipbuilding and other major weapons acquisition 
programs?
    Mr. Lynn. Since I have not been briefed on the specifics on the 
major acquisition programs, I will not be able to speak about the 
details of a specific program; however, let me explain what will be my 
principles that will allow a stable, cost-effective acquisition process 
if I am confirmed as the Deputy Secretary of Defense. First, I think 
there is agreement from both our industrial partners and the leaders in 
the Navy, DOD, and government in general that the shipbuilding industry 
needs a stable, reliable shipbuilding plan from which to make sound 
business decisions. Given the long lead times for both skilled manpower 
and material, shipbuilding is not a business that responds well to 
multiple, quick changes in policy. For several years now, the Navy has 
had a long-term shipbuilding plan on the table, and now, it must be 
executed. To accomplish that, the Navy must buy only exactly what it 
needs--the capabilities put into each ship must provide the absolute 
best return on investment. We can't afford all the newest technologies 
on every platform, so the early decisions on requirements and design of 
a new system are crucial to maintaining an affordable shipbuilding or 
major weapon acquisition program. Design and requirement changes, once 
the design has begun maturing, cost an enormous amount in both time and 
money--these changes should be minimized to only cases where the system 
will not function without the change. I understand the Secretary of the 
Navy announced last summer several changes in the acquisition process 
to ensure that more senior leadership oversight is injected early into 
a program's life cycle. This increased senior level involvement in the 
first stages of a program should prove crucial to improving the 
definition of requirements and ensuring they remain stable throughout 
the design and production phases of the program. Much of the cost 
growth of acquisition programs can be tied to unrealistic build times 
and cost estimates based on overly optimistic projections or immature 
technologies. We must use realistic figures for our estimates of both 
cost and build times to ensure our initial plans project the most 
realistic cost possible. Finally, having a plan is the first step; 
fully funding that plan is the second. If the plan is only paper and 
doesn't translate into real contracts, our shipbuilding partners will 
not be able to do the long-term strategic planning that will give the 
Navy the cost savings that can be realized from successful long-term 
planning.

                       armed forces end strength
    49. Senator Collins. Mr. Lynn, it has now been over 7 years since 
the initial call-up and mobilization of National Guard and Reserve 
Forces in support of the global war on terrorism. In the Afghan Study 
Report of 2007, it stated that ``Afghanistan stands at a crossroads,'' 
and that the progress achieved over the previous 6 years was threatened 
by resurgent Taliban violence. The report recommended that the ``light 
footprint'' in Afghanistan be replaced by the ``right footprint'' of 
U.S. and Allied force levels. Given the strain on the Active-Duty 
Forces and the over usage of the National Guard and Reserves, do you 
think the current end strength numbers for the Armed Forces, especially 
the Army and Marine Corps, are sufficient to meet today's current needs 
and threats while reducing the strain on our Active, Reserve, and 
National Guard troops?
    Mr. Lynn. All of our servicemembers (Active and Reserve) continue 
to perform extraordinarily in light of the demands we have placed upon 
them. I believe the increases in our ground forces (Army and Marines) 
are necessary, and will strengthen the ability of the Department to 
continue to support the global war on terror. We cannot fail to have 
the right numbers and kinds of uniformed personnel to win our wars, and 
to deter potential adversaries. Additionally, our force, Active and 
Reserve, must be large enough to not only satisfy deployed demands, but 
also have a rotation base that recognizes the personal needs of our 
volunteers and their families. At the same time, our volunteers must 
have the weapons, equipment, and support that will enable mission 
success. Striking the right balance between personnel, 
recapitalization, and operational and support costs will be a 
challenging imperative and I look forward to working with Congress.
                                 ______
                                 
Questions Submitted by Honorable Chuck Grassley, U.S. Senator from the 
                             State of Iowa
                          financial management
    50. Senator Grassley. Mr. Lynn, as the Under Secretary of Defense 
(Comptroller), you were the Department's Chief Financial Officer (CFO). 
That position was established by the CFO Act of 1990. Section 902 of 
the CFO Act states: ``The CFO shall develop and maintain an integrated 
agency accounting and financial management system, including financial 
reporting and internal controls.'' This requirement existed for at 
least 5 years before you became the DOD CFO. While you were CFO, did 
DOD operate a fully integrated accounting and financial management 
system that produced accurate and complete information? If not, why?
    Mr. Lynn. The DOD financial and business management systems were 
designed and created before the CFO Act of 1990 to meet the prior 
requirements to track obligation and expenditure of congressional 
appropriations accurately. The CFO Act required the Department to shift 
from its long-time focus on an obligation-based system designed to 
support budgetary actions to a broader, more commercial style, accrual-
based system. To accomplish this transformation, several things needed 
to be done. First, the Department created the Defense Finance and 
Accounting Service (DFAS) to consolidate financial operations, which 
was accomplished in 1991 before my tenure as Under Secretary. Second, 
the Department had too numerous and incompatible finance and accounting 
systems. From a peak of over 600 finance and accounting systems, I led 
an effort to reduce that number by over two-thirds. This consolidation 
effort also strove to eliminate outdated financial management systems 
and replace them with systems that provided more accurate, more timely, 
and more meaningful data to decisionmakers. The third and most 
difficult step in developing an integrated accounting and financial 
management system has been to integrate data from outside the financial 
systems. More than 80 percent of the data on the Defense Department's 
financial statement comes from outside the financial systems 
themselves. It comes from the logistics systems, the personnel systems, 
the acquisition systems, the medical systems, and so on. On this 
effort, we made progress while I was Under Secretary but much more 
needs to be done. If confirmed, I will take this task on as a high 
priority.

    51. Senator Grassley. Mr. Lynn, under section 3515 of the CFO Act, 
all agencies, including DOD, are supposed to prepare and submit 
financial statements that are then subjected to audit by the Inspectors 
General. While you were the CFO, did DOD ever prepare a financial 
statement in which all DOD components earned a clean audit opinion from 
the DOD IG? If not, why?
    Mr. Lynn. In the 1997, the DOD had 23 reporting entities, only 1 of 
which, the Military Retirement Fund, had achieved a clean audit. Over 
the next 4 years, the Department under my leadership as Under Secretary 
earned a clean opinion on three other entities: most importantly, the 
DFAS in 2000, followed by the Defense Commissary Agency, and the 
Defense Contract Audit Agency in 2001. We were unable to obtain clean 
opinions on the other reporting entities. The primary reason for not 
earning clean opinions on the remaining entities was the difficulty of 
capturing data from nonfinancial systems and integrating that data into 
the financial systems in an auditable manner. It is my understanding 
that the Department still faces the challenge of integrating financial 
and nonfinancial systems to support the auditability of the DOD 
financial statements.

    52. Senator Grassley. Mr. Lynn, as CFO, what specific steps did you 
take to correct this problem?
    Mr. Lynn. Under my leadership, the DOD instituted several important 
efforts to achieve a clean audit opinion. The primary effort was 
described in the Biennial Financial Management Improvement Plan (FMIP) 
which was submitted to Congress in 1998. That plan merged previous 
initiatives with new ones into a single comprehensive effort to achieve 
both financial management improvement and auditability. To directly 
address auditability, the FMIP included an effort in collaboration with 
the Office of Management and Budget, the General Accounting Office, and 
the Office of the Inspector General to address 10 major issues 
identified by the audit community: 1) internal controls and accounting 
systems related to general property plant and equipment; 2) inventory; 
3) environmental liabilities; 4) military retirement health benefits 
liability; 5) material lines within the Statement of Budgetary 
Resources; 6) unsupported adjustments to financial data; 7) financial 
management systems not integrated; 8) systems not maintaining adequate 
audit trails; 9) systems not valuing and depreciating properly, plant 
and equipment; and 10) systems not using the Standard General Ledger at 
the transaction level. Due to this effort, substantial progress was 
made on most of these issues and several were resolved, including 
valuation of the military retirement health benefits liability, the 
reduction of unsupported adjustments to financial data, and the 
identification of environmental liabilities.

    53. Senator Grassley. Mr. Lynn, 18 years after the CFO Act was 
signed into law, DOD is still unable to produce a comprehensive 
financial statement that has been certified as a clean audit. It may be 
years before that goal is met. If DOD's books cannot be audited, then 
the defense finance and accounting system is disjointed and broken. 
Financial transactions are not recorded in the books of account in a 
timely manner and sometimes not at all. Without accurate and complete 
financial information, which is fed into a central management system, 
DOD managers do not know how the money is being spent or what anything 
costs. That also leaves DOD financial resources vulnerable to fraud, 
waste, and abuse, and even outright theft. The last time I looked at 
this problem billions--and maybe hundreds of billions--of tax dollars 
could not be properly linked to supporting documentation. As Deputy 
Secretary of Defense, what will you do to address this problem? Please 
give me a realistic timeline for fixing this problem.
    Mr. Lynn. The Department needs stronger management information 
systems. I can assure you that, if confirmed, I will be committed to 
improving financial information and business intelligence needed for 
sound decisionmaking. I have not yet completed my review of all the 
information needed to provide a specific timeline; however, I will 
continue to examine this issue, including consideration of this and 
other committees' views as well as the resources needed for the audit, 
before forming my assessment of how close DOD is to a clean audit.

                     potential conflict of interest
    54. Senator Grassley. Mr. Lynn, as a Senior Vice President of 
Government Operations at the Raytheon Company, you were a registered 
lobbyist until July 2008. Correct? How long were you a registered 
lobbyist?
    Mr. Lynn. Yes. From July 2002 to March 2008.

    55. Senator Grassley. Mr. Lynn, in his ``Blueprint for Change,'' 
President-elect Obama promises to ``Shine Light on Washington 
Lobbying.'' He promises to ``Enforce Executive Branch Ethics'' and 
``Close the Revolving Door.'' He promises: ``no political appointees in 
an Obama-Biden administration will be permitted to work on regulation 
or contracts directly and substantially related to their prior employer 
for 2 years.'' Raytheon is one of the big defense contractors. As 
Deputy Secretary, Raytheon issues will surely come across your desk. If 
you have to recuse yourself from important decisions, you would limit 
your effectiveness as Deputy Secretary of Defense. How will you avoid 
this problem for 2 years?
    Mr. Lynn. I have received a waiver of the ``Entering Government'' 
restrictions under the procedures of the Executive order implementing 
the ethics pledge requirements. The waiver, however, does not affect my 
obligations under current ethics laws and regulations. Until I have 
divested my Raytheon stock, which will be within 90 days of 
appointment, I will take no action on any particular matter that has a 
direct and predictable effect on the financial interests of Raytheon. 
Thereafter, for a period of 1 year after my resignation from Raytheon, 
I also will not participate personally and substantially in any 
particular matter involving Raytheon, unless I am first authorized to 
do so under 5 C.F.R. Sec. 2635.502(d). If confirmed, I pledge to abide 
by the foregoing provisions. I would add that I have not been exempted 
from the other Executive order pledge requirements, including the ones 
that restrict appointees leaving government from communicating with 
their former executive agency for 2 years and bar them from lobbying 
covered executive branch officials for the remainder of the 
administration.
                                 ______
                                 
    [The nomination reference of William J. Lynn III follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  Janaury 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William J. Lynn III, of the District of Columbia, to be Deputy 
Secretary of Defense, vice Gordon England, resigned.
                                 ______
                                 
    [The biographical sketch of William J. Lynn III, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of William J. Lynn III
    William Lynn served as the Under Secretary of Defense (Comptroller) 
from 1997 to 2001. In that position, he was the chief financial officer 
for the Department of Defense and the principal advisor to the 
Secretary of Defense for all budgetary and fiscal matters. From 1993 to 
1997, Mr. Lynn was the Director of Program Analysis and Evaluation in 
the Office of the Secretary of Defense, where he oversaw the Defense 
Department's strategic planning process.
    During his tenure at the Defense Department, Mr. Lynn was awarded 
three Department of Defense medals for Distinguished Public Service, 
the Joint Distinguished Civilian Service Award from the Chairman of the 
Joint Chiefs of Staff and awards from the Army, Navy and Air Force. He 
also received the 2000 Distinguished Federal Leadership Award from the 
Association of Government Accountants for his efforts to improve 
defense accounting practices.
    Mr. Lynn currently serves as senior vice president of Government 
Operations and Strategy at Raytheon Company. In that position, he leads 
the company's strategic planning and oversees the government relations 
activity. Before entering the Department of Defense in 1993, he served 
for 6 years on the staff of Senator Edward Kennedy as liaison to the 
Senate Armed Services Committee. He has also been a Senior Fellow at 
the National Defense University, on the professional staff at the 
Institute for Defense Analyses and served as the executive director of 
the Defense Organization Project at the Center for Strategic and 
International Studies.
    A graduate of Dartmouth College, Mr. Lynn has a law degree from 
Cornell Law School and a Master's in Public Affairs from the Woodrow 
Wilson School at Princeton University.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by William J. 
Lynn III in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William J. Lynn III.

    2. Position to which nominated:
    Deputy Secretary of Defense.

    3. Date of nomination:
    Intention to nominate issued January 8, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 1, 1954; Key West, FL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary A. Murphy.

    7. Names and ages of children:
    Catherine J. Lynn, 2.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1972-1976 - Dartmouth College, Hanover, NH - B.A. - 06/1976.
    1977-1980 - Cornell Law School, Ithaca, NY - Juris Doctor - 06/
1980.
    1980-1982 - Princeton University, Woodrow Wilson School - 
Princeton, NJ - Masters Degree, Public Affairs - 06/1982.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    08/2002-Present - Raytheon Company, Senior Vice President, 
Government Operations & Strategy, Arlington, VA.
    01/2001-07/2002 - DFI International, Executive Vice President, 
Washington, DC.
    11/1997-01/2001 - Department of Defense, Under Secretary of 
Defense, Washington, DC.
    06/1993-11/1997 - Department of Defense, Director PA&E, Washington, 
DC.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Office of Senator Edward M. Kennedy, Legislative Counsel, 
Washington, DC - 1983-1987.
    Office of the Defense Adviser, Graduate Student Intern, Belgium, 
Brussels - 06/1981-12/1981.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Raytheon Company, Corporate Officer.
    Center for New American Security, Board of Directors.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Bar Association - District of Columbia.
    Wychemere Harbor Beach Club - Harwich Port, MA.
    TPC Avenel - Potomac, MD.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2008 - Obama for America - $2,300.
    2008 - Jeff Merkley for Oregon (general election) - $2,300.
    2008 - Reed Committee - $500.
    2008 - John Kerry for Senate - $1,000.
    2007 - Jeff Merkley for Oregon (primary) - $2,300.
    2007 - Hillary Clinton for President (general election) - $2,300 
(returned in 2008).
    2007 - Hillary Clinton for President (primary) - $2,300.
    2006 - Friends of Jane Harman - $500.
    2006 - Forward Together PAC - $1,000.
    2005 - Bill Nelson for U.S. Senate - $500.
    2004 - The Markey Committee - $500.
    2004-2008 - Annual contributions of $5,000 to Raytheon Company PAC.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Joint Distinguished Civilian Service Award - Joint Chiefs of Staff.
    Department of Navy Distinguished Service Award.
    Department of Air Force Distinguished Service Award.
    Department of Army Distinguished Service Award.
    2000 Distinguished Federal Leadership Award - Assoc. of Government 
Accountants.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Guns That Die of Embarrassment,'' book review in The New York 
Times Book Review (December 21, 1986).
    ``U.S. Defense Policy.'' Yale Law & Policy Review (Fall/Winter 
1986).
    ``The Case for JCS Reform,'' International Security (Winter 1985-
1986).
    Toward a More Effective Defense, Ballinger (1985).
    ``Reform Needed so JCS Can Act as One,'' Atlanta Journal and 
Constitution (March 24, 1985).
    ``The Wars Within: The Joint Military Structure and Its Critics,'' 
Reorganizing America's Defenses: Leadership in War and Peace, edited by 
Art, Davis, and Huntington Pergamon Press (1985).
    ``U.S.-Soviet Crisis Management and Confidence-Building Measures,'' 
in Preventing Nuclear War, edited by Barry Blechman, Indiana University 
Press (1985).
    ``Service Rivalries Block True Security,'' The Los Angeles Times 
(April 13, 1983).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               William J. Lynn III.
    This 13th day of January, 2009.

    [The nomination of William J. Lynn III was reported to the 
Senate by Chairman Levin on February 5, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 11, 2009.]
                              ----------                              

    [Prepared questions submitted to Robert F. Hale by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols Act is one of the most 
important and effective defense reforms enacted by Congress. I do not 
see any need for modifications. However, if confirmed, I will keep an 
open mind regarding changes.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted, I do not see any need for modifications.
                             relationships
    Question. What is your understanding of the relationship between 
the Under Secretary of Defense (Comptroller) and each of the following?
    The Secretary of Defense.
    Answer. The Under Secretary of Defense (Comptroller) is the 
principal assistant and advisor to the Secretary and Deputy Secretary 
of Defense on fiscal and budgetary matters. The Under Secretary 
(Comptroller) also performs such other duties as the Secretary or 
Deputy Secretary may prescribe.
    Question. The Deputy Secretary of Defense.
    Answer. Please see the answer above.
    Question. The other Under Secretaries of Defense.
    Answer. My relationship with all other senior officials of the 
Department will, for the most part, be based on the role described 
above. If confirmed, I will work closely with the other Under 
Secretaries to carry out the policies and guidance of the Secretary and 
Deputy Secretary.
    Question. The Assistant Secretaries of Defense.
    Answer. My relationship with the Assistant Secretaries of Defense 
and other senior officials of the Office of the Secretary of Defense 
would be similar to that described above in relation to the other Under 
Secretaries of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I intend to work closely with 
the Chairman and Joint Staff on resource and financial management 
issues.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the military departments carry out the 
policies of the President and the Secretary of Defense in their 
respective military departments and formulate recommendations to the 
Secretary and to Congress relating to their military departments and 
DOD. If confirmed, I intend to work closely with the Secretaries of the 
military departments, and specifically, their Assistant Secretaries for 
Financial Management who I intend to meet with regularly. I will ensure 
that they are aware of the President's and the Secretary of Defense's 
policies and priorities and assist them in contributing to the 
successful development and implementation of effective DOD policies and 
programs.
    Question. The heads of the defense agencies.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, work closely with the heads of the 
defense agencies, and specifically, with our financial management 
counterparts in those agencies. I will ensure that they are aware of 
the President's and the Secretary of Defense's policies and priorities 
and assist them in contributing to the successful development and 
implementation of effective DOD policies and programs.
    Question. The Assistant Secretaries for Financial Management of the 
Services.
    Answer. In the role of Comptroller and Chief Financial Officer for 
the Department, I will, if confirmed, work closely with the Assistant 
Secretaries of the Military Departments for Financial Management in the 
development and execution of the budgetary and fiscal policies and 
initiatives of the President and the Secretary of Defense.
    Question. The General Counsel of DOD.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, rely on the General Counsel, who is the 
Chief Legal Officer of DOD, on all legal matters, and will consult and 
coordinate with the General Counsel on all matters relating to 
programs, projects, and activities of DOD, as well as matters relating 
to financial management, accounting policy and systems, management 
control systems, and contract audit administration, that may have legal 
implications.
    Question. The Inspector General.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, consider it my responsibility to support 
the DOD Inspector General in carrying out his or her duties as set 
forth in the Inspector General Act.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. If confirmed, I will ensure a high level of coordination 
with the Director of the Office of Program Analysis and Evaluation in 
fulfilling his or her role of providing independent assessments for 
acquisition systems. I will also work with the Director of PA&E to 
ensure the success of the combined program/budget review.
    Question. The Deputy Chief Management Officer (CMO).
    Answer. I would, if confirmed, establish an appropriate 
relationship based on the responsibilities assigned to that official 
and do everything possible to improve management of the Department's 
complex operations and organization.
    Question. The Director, Office of Management and Budget (OMB).
    Answer. If I am confirmed, my relationship would include periodic 
interaction with the OMB leadership on the sound preparation and 
execution of DOD budgets and the advancement of both OMB and DOD 
management improvements.
    Question. The Comptroller General.
    Answer. If I am confirmed, my relationship would be to analyze and 
address recommendations of the Comptroller General and the Government 
Accountability Office (GAO) regarding DOD matters, and to solicit 
recommendations in areas I think could use additional perspectives.
                       duties of the comptroller
    Question. The duties of the Comptroller of the DOD are set forth in 
section 135 of title 10, U.S.C., and in DOD Directive 5118.3. Among the 
duties prescribed in statute are advising and assisting the Secretary 
of Defense in supervising and directing the preparation of budget 
estimates of DOD, establishing and supervising DOD accounting policies, 
and supervising the expenditure of DOD funds.
    Assuming you are confirmed, what duties do you expect that 
Secretary Gates will prescribe for you?
    Answer. Provide high quality, timely advice to the Secretary of 
Defense and Deputy Secretary on issues related to financial management 
in the Department.
    Ensure that the men and women in the military Services have the 
resources they need to meet national security objectives.
    Ensure that funds are spent in accordance with laws and regulations 
and that the American taxpayers get the best possible value for their 
tax dollars.
    Account in an accurate manner for the funds spent by the 
Department.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Comptroller?
    Answer. I have more than 30 years of experience with defense and 
its financial management tasks including:

        <bullet> Seven years as Air Force Comptroller overseeing many 
        of the types of tasks I would, if confirmed, oversee for the 
        Department as a whole.
        <bullet> Twelve years at the Congressional Budget Office 
        heading the group dealing with national security issues.
        <bullet> Work in support of professional development 
        initiatives to improve the training of defense financial 
        managers.
        <bullet> Service as a member of the United States Navy, both on 
        Active Duty and in the Reserves.
        <bullet> Completion of the Certified Defense Financial Manager 
        program, a test-based certification program set up to provide 
        objective verification of knowledge of the rules and processes 
        governing defense financial management.

    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. I believe I can continue to increase my expertise by 
learning more about current, specific issues regarding the DOD budget 
through study of source documents and discussions with subject matter 
experts.
    Question. Do you expect Secretary Gates to make any changes in the 
duties of the Comptroller as set out in DOD Directive 5118.3?
    Answer. I have not yet discussed this question with Secretary 
Gates.
                        chief financial officer
    Question. DOD Directive 5118.3 designates the Comptroller as the 
Chief Financial Officer of DOD. Does Secretary Gates intend to continue 
to designate you, if confirmed as the Comptroller, as the Chief 
Financial Officer of DOD?
    Answer. I have seen no indications that he would do otherwise, but 
will address this issue expeditiously if I am confirmed.
    Question. If so, what would be your major responsibilities as Chief 
Financial Officer?
    Answer. Oversee all financial management activities relating to the 
programs and operations of DOD; develop and maintain integrated agency 
accounting and financial management systems; direct, manage, and 
provide policy guidance and oversight of DOD's financial management 
personnel, activities, and operations; prepare audited financial 
statements; and monitor the financial execution of budgets.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense (Comptroller)/Chief Financial 
Officer?
    Answer. If confirmed, the foremost challenge is to prepare and 
manage defense budgets so that the Department obtains the resources 
necessary to accomplish national security objectives--especially the 
resources needed to meet wartime requirements and for our military 
forces to successfully conduct their operations. This includes:

        <bullet> Ensuring that the pay, benefits, health care, and 
        quality of life support is commensurate with the sacrifices we 
        are asking our troops and their families to make.
        <bullet> Making sure the troops have the training and equipment 
        needed to meet the challenges they will face.

    If confirmed, I must also improve the financial information 
available to DOD managers including achieving, where appropriate, 
auditable financial statements and improving financial systems. Better 
information will also help control defense spending in ways that assist 
in reducing long-term deficits.
    If confirmed, I need to support the components in their critical 
efforts to recruit, train, and retain a workforce that can meet defense 
financial management needs into the 21st century.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with other senior 
principals in DOD and the Comptroller staff, military departments, 
defense agencies, OMB, and Congress to develop policies to meet these 
challenges.
    I will also provide aggressive leadership and support for my staff 
in executing these policies.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operation and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by DOD?
    Answer. I understand that it has been the Department's practice to 
work with all the oversight committees to resolve these matters. If 
confirmed, I will respect the prerogatives of the Department's 
oversight committees and will work closely with the committees to 
achieve a consensus necessary to meet our defense needs.
              supplemental funding for military operations
    Question. Section 1008 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 (Public Law 109-364) requires 
the President's budget to include funding for ongoing military 
operations in Afghanistan and Iraq in the Department's annual budget 
requests, along with a detailed justification for that funding. It also 
requires the President's budget to include an estimate of the total 
funding to be required in that fiscal year for such operations. The 
Department fully complied with these requirements in the fiscal year 
2008 budget, but more than a year elapsed before Congress approved the 
bulk of the requested funding. The administration then failed to comply 
with these requirements in the fiscal year 2009 budget request.
    To what degree do you believe it is possible, in the near term, to 
include the full cost of these ongoing operations in the base budget 
request?
    Answer. If confirmed, I would hope to work with Congress and OMB to 
try to move away from supplementals. The feasibility of moving away 
from supplementals depends on the budget year.

        <bullet> For fiscal year 2009, DOD needs a supplemental, 
        because the base budget has been enacted.
        <bullet> For fiscal year 2010, with limited time available for 
        submission of a base budget request, and with continuing 
        uncertainty about changing war requirements, the President may 
        decide he will need to have a supplemental.
        <bullet> In later budgets, we should be better able to minimize 
        dependence on supplementals.

    Regardless of the year, we should avoid including predictable costs 
in supplemental requests.
    Question. Do you believe the costs of ongoing military operations 
can be fully incorporated into a unified budget request such that the 
use of supplementals could be discontinued? If so, what criteria would 
need to be met to achieve that objective?
    Answer. Full elimination of supplementals would require substantial 
reduction in the uncertainties associated with wartime operations. 
However, the negative aspects of supplementals can be minimized by 
ensuring DOD scrutiny of supplemental requests similar to that afforded 
the base budget (a policy endorsed by the President-elect) and by 
providing Congress with early information regarding supplemental 
requests.
    Question. In recent years the Department has had to prepare a base 
budget and two separate supplemental funding requests each year.
    Do you believe the Comptroller organization has the personnel and 
other resources needed to adequately manage this increased workload?
    Answer. I am concerned about the adequacy of resources in the 
Comptroller organization to manage the increased workload associated 
with wartime operations.
    If confirmed, I will carefully review the staffing and organization 
and recommend any changes that I believe are required.
                       program and budget review
    Question. The Department has operated under a planning, 
programming, and budget system for decades. The programming and 
budgeting functions have sometimes been combined in a single reporting 
chain and at other times, as is currently the case, been run by 
distinct offices (Program Analysis and Evaluation and the Comptroller, 
respectively) that report separately to the Secretary of Defense. The 
program and budget review processes have also been revised in recent 
years and have been made more concurrent than was previously the case.
    What are your views on the proper relationship between the program 
and budget processes and the offices responsible for those functions?
    Answer. I believe there must be regular and effective coordination 
between the Comptroller and Program Analysis and Evaluation 
organizations. If confirmed, I will keep an open mind about possible 
changes regarding the proper relationship between the program and 
budget processes and the offices responsible for those functions. I 
will also, if confirmed, consider whether to recommend changes in the 
concurrency of the program and budget processes.
                     management of defense spending
    Question. GAO recently released its list of ``urgent issues'' for 
the next administration and Congress. Among those issues was defense 
spending. According to the GAO: ``The Department's current approach to 
planning and budgeting is based on overly optimistic planning 
assumptions and lacks a strategic, risk-based framework for determining 
priorities and making investment decisions. As a result, it continues 
to experience a mismatch between programs and budgets, and it does not 
fully consider long-term resource implications and the opportunity cost 
of selecting one alternative over another.''
    What are your views on the concerns raised by GAO?
    Answer. The Department's Planning, Programming, Budgeting, and 
Execution (PPBE) process provides DOD with a sound process with which 
to develop a strategic plan and build a 6-year program and budget to 
achieve that plan. Within the PPBE process there is ample opportunity 
to debate and determine priorities and make resource decisions that 
take into account relative risks. The key is how that process is 
managed. If confirmed, my goal will be to assist in ensuring that the 
PPBE process does in fact achieve its designed purpose and to recommend 
changes where they are appropriate.
    Question. If confirmed, what actions would you take, as the Under 
Secretary of Defense (Comptroller), with respect to those aspects of 
the management of the Department that are within the purview of the 
Comptroller that may be relevant to the concerns raised by GAO?
    Answer. As I noted above, I will review the current implementation 
of the PPBE process and recommend improvements where appropriate.
                                earmarks
    Question. On January 29, 2008, President Bush signed Executive 
Order 13457, which states that agency decisions to commit, obligate, or 
expend funds may not be ``based on language in any report of a 
committee of Congress, joint explanatory statement of a committee of 
conference of Congress, statement of managers concerning a bill in 
Congress, or any other non-statutory statement or indication of views 
of Congress, or a House, committee, Member, officer, or staff 
thereof.'' Congress responded to this Executive order by including a 
provision in the Duncan Hunter National Defense Authorization Act for 
Fiscal Year 2009 that incorporated by reference the funding tables in 
the conference report on the bill. Similar provisions were included in 
several other bills.
    Do you see the need for any changes to Executive Order 13457? If 
so, what changes would you recommend?
    Answer. I would expect that all Executive orders from prior 
administrations will be reviewed by the new administration. I would 
want to see the results of that review before making any specific 
recommendations regarding changes.
    However, I believe that there should be a careful review of the 
effectiveness of defense spending including all spending, not just 
earmarks. Such a review would be consistent with policies likely to be 
promulgated by President Obama after his inauguration.
    Question. If confirmed, what would your duties be with respect to 
implementing this Executive order with respect to funding for DOD?
    Answer. I expect that the White House will provide direction on 
earmarks and, if confirmed, I will ensure that direction is followed.
    Question. If confirmed, what steps would you expect to take to 
ensure that DOD abides by congressional funding decisions and that 
funds available to the Department are expended only for the purposes 
for which they have been appropriated?
    Answer. If confirmed, I would work with DOD components to ensure 
that the funds are spent for the purposes for which Congress 
appropriated the funds.
    Question. The committee has considered the possibility of including 
the funding tables in bill language, instead of report language, in 
future bills. Concern has been expressed that this approach could limit 
the flexibility of DOD to transfer funds to meet emerging high-priority 
needs.
    What is your view on the advisability of incorporating funding 
tables into the text of bills authorizing and appropriating funds for 
DOD?
    Answer. I am concerned that DOD must have enough flexibility to 
meet national security requirements by, among other things, 
accomplishing needed reprogramming. As for this specific question, I am 
not familiar enough with the legal implications of incorporating the 
tables into the bill. If confirmed, I would examine this issue, discuss 
it with the Department's lawyers, and then work closely with the 
committees and others before implementing a solution.
                        contracting for services
    Question. In recent years, DOD has become increasingly reliant on 
services provided by contractors. Over the past 8 years, for example, 
DOD's spending on contract services has more than doubled with the 
estimated number of contractor employees working for the Department 
increasing from an estimated 730,000 in fiscal year 2000 to an 
estimated 1,550,000 in fiscal year 2007. As a result, the Department 
now spends more for the purchase of services than it does for products 
(including major weapon systems).
    Do you believe that the Department can or should continue to 
support this level of spending on contract services?
    Answer. It is my understanding that service contractors provide a 
valuable function to DOD.
    If confirmed, I would support efforts by the Under Secretary of 
Defense (Acquisition, Technology, and Logistics) and other leaders to 
review the level of contracting services required in keeping with 
President-elect Obama's pledge to have the Department improve its 
strategy for determining when contracting makes sense.
    Question. Do you believe that the current balance between Federal 
employees and contractor employees is in the best interests of DOD?
    Answer. DOD requires some mix of Federal employees and contractors 
to carry out its mission effectively.
    If confirmed, I would support efforts to help ensure the 
appropriate balance in that mix.
    Question. If confirmed, will you take a close look at the 
Department's expenditures for services and determine whether it would 
be appropriate to cap or limit growth in such expenditures for a period 
of time?
    Answer. Yes.
                         acquisition workforce
    Question. Over the last 15 years, DOD has dramatically reduced the 
size of its acquisition workforce, without undertaking any systematic 
planning or analysis to ensure that it would have the specific skills 
and competencies needed to meet current and future needs. Since 
September 11, 2001, moreover, the demands placed on that workforce have 
substantially increased. Do you believe that the DOD acquisition 
workforce is large enough and has the skills needed to perform the 
tasks assigned to it?
    Answer. If confirmed, I will support the Under Secretary of Defense 
(Acquisition, Technology, and Logistics) organization on this issue.
    Question. Would you agree that the Department is losing more money 
through waste and inefficiency in its acquisition programs than it is 
likely to save through constraints on the size and qualifications of 
its acquisition workforce, and, if so, what recommendations do you have 
to address the problem?
    Answer. I understand the committee's concerns with this issue. 
However, I do not have sufficient recent information to answer this 
question effectively. Eliminating waste and inefficiency in acquisition 
needs to be a top priority for DOD leaders, and if confirmed, I would 
make that part of my agenda.
    Question. Section 852 of the National Defense Authorization Act for 
Fiscal Year 2008 established an Acquisition Workforce Development Fund 
to help the DOD address shortcomings in its acquisition workforce. The 
fund would provide a minimum of $3 billion over 6 years for this 
purpose.
    Do you support the use of the DOD Acquisition Workforce Development 
Fund to ensure that DOD has the right number of employees with the 
right skills to run its acquisition programs in the most cost effective 
manner for the taxpayers?
    Answer. If confirmed, I certainly would support efforts to have the 
right number of professionals with the right skills for our acquisition 
work.
    I believe it is too early to know how effectively the fund is being 
used. But, if confirmed, I certainly will comply with the law regarding 
the fund and do everything I can to advance the cost-effective 
management of acquisition programs.
    Question. If confirmed, what steps would you take to ensure that 
the Acquisition Workforce Development Fund remains fully funded 
throughout the period of the Future Years Defense Program?
    Answer. I do not have in mind any specific steps, but if confirmed, 
I will examine this issue and, after consulting with this committee and 
others, make an appropriate recommendation.
                        chief management officer
    Question. The positions of CMO of DOD and Deputy CMO of DOD were 
established by section 904 of the National Defense Authorization Act 
for Fiscal Year 2008. In accordance with section 904, the purpose of 
these new positions is to improve the overall efficiency and 
effectiveness of the business operations of DOD and to achieve an 
integrated management system for business support areas within DOD. Do 
you believe that a comprehensive, integrated, enterprise-wide 
architecture and transition plan is essential to the successful 
transformation of DOD's business systems?
    Answer. Yes. I believe an effective architecture is a necessary but 
not a sufficient condition for successful overhaul of DOD business 
systems.
    Question. Do you believe that the Department needs senior 
leadership from a CMO and a Deputy CMO to cut across stovepipes and 
ensure the implementation of a comprehensive, integrated, enterprise-
wide architecture for its business systems?
    Answer. Yes. Creation of an architecture and, more importantly the 
implementation of system changes, are major tasks that require 
substantial time and management expertise. I believe that a CMO and 
Deputy CMO can help provide the required time and expertise.
    Question. If confirmed, what role do you expect to play in working 
with the CMO and the Deputy CMO to improve the business operations of 
DOD?
    Answer. If confirmed, I will work with the CMO and Deputy CMO in 
ensuring unified, standardized, and integrated business processes and 
systems.
    Question. What responsibilities, if any, that may have formerly 
been performed by the Comptroller do you believe have been, will be, or 
should be reassigned to the CMO or the Deputy CMO of DOD?
    Answer. I believe that I need more knowledge of the specific 
options, and the resources and expertise available from the CMO and 
Deputy CMO, before deciding what, if any, changes in responsibilities 
are appropriate. If confirmed, I will consider appropriate changes.
                 government performance and results act
    Question. If confirmed as Comptroller, what would your 
responsibilities be with respect to DOD implementation of the 
requirements of the Government Performance and Results Act (GPRA) to 
set specific performance goals and measure progress toward meeting 
them?
    Answer. I would collaborate with the other principals to ensure 
that the budget justification material includes realistic annual 
performance goals and corresponding performance measures and 
indicators.
    These executive-level goals and metrics should represent the 
leading performance trends that the Secretary must monitor to manage 
risk across the Department, and to maintain progress toward 
accomplishing the long-term outcomes of the defense strategy.
    Question. What additional steps can the Department take to fulfill 
the goal of the GPRA to link budget inputs to measurable performance 
outputs?
    Answer. If confirmed, I will review the existing GPRA metrics and 
work with the other principals to improve them where warranted.
                     collection of contractor taxes
    Question. The Comptroller General has reported that approximately 
27,100 DOD contractors owe more than $3.0 billion in back taxes, and 
that DOD has not fulfilled its duty under the Debt Collection 
Improvement Act of 1996 to help recoup these back taxes.
    What steps will you take, if confirmed, to improve the Department's 
performance in this area?
    Answer. If confirmed, I would do what is necessary to help DOD 
fulfill its duty under the Debt Collection Improvement Act of 1996--to 
include the collection of all monies owed to the Federal Government 
from any contractor with whom we are doing business. I look forward to 
working with other government agencies to improve the tax collection 
process.
    Question. Do you believe that the Department needs additional 
statutory authority to be effective in identifying and recovering back 
taxes from contractors?
    Answer. If confirmed, I will explore this issue with other 
agencies, specifically the Internal Revenue Service and the Treasury, 
after which I can better address the need for additional legislation.
                      leasing major weapon systems
    Question. The Air Force's proposal, which was ultimately not 
implemented, to lease rather than purchase new tanker aircraft, 
highlighted serious concerns about the cost-effectiveness of leasing 
major capital assets as opposed to purchasing them and led the 
Department to create a ``Leasing Review Panel,'' co-chaired by the 
Comptroller, to review all major leasing agreements.
    What are your views on the merits of leasing versus buying major 
capital equipment?
    Answer. I do not have any predetermined views on leasing versus 
buying major capital equipment. I believe that each proposal would need 
to be evaluated on its own merit.
    Question. Under what circumstances do you believe that the lease of 
major capital equipment should be considered an annual operating 
expense for budget purposes?
    Answer. If confirmed, I will ensure that the Department adheres to 
OMB guidance and pursues leasing only when it clearly benefits the 
taxpayer.
                  incremental funding vs. full funding
    Question. Do you believe DOD should continue to adhere to the 
longstanding practice of fully funding the purchases of major capital 
assets, including ships and aircraft, in the year the decision to 
purchase the asset is made, or do you believe incremental funding of 
such purchases is justified in some cases?
    Answer. As I understand it, it is OMB's policy that requires that 
programs be fully funded when they are procured.
    I fully support this requirement and, if confirmed, will work to 
ensure full funding because it ensures that all of the funding is there 
to support a usable end item.
    However, there may be limited instances where incremental funding 
is warranted and is in the best interest of the Department and the 
taxpayer. For example, I can understand why we may want to consider 
incremental funding of some major end items such as aircraft carriers 
and large building construction projects because they take so long to 
complete and are very expensive.
    Question. If you believe a change in policy is warranted, please 
explain how you believe such changes would benefit the Department and 
the taxpayer.
    Answer. If confirmed, I will assess whether such a policy change is 
warranted.
                          base closure savings
    Question. The costs of the 2005 Base Realignment and Closure round 
have exceeded the initial estimates put forward by DOD and the 
independent commission by about 50 percent, an increase of 
approximately $10 billion. Those initial estimates were derived from 
the Cost of Base Realignment Actions (COBRA) model, which is not 
designed to produce ``budget quality'' data.
    Do you believe the Department should continue to use the COBRA 
model, in its current form, for any future base closure rounds that may 
be authorized, or do you believe the accuracy of the estimated cost of 
such actions should be improved?
    Answer. If confirmed, and before significant additional use is made 
of the COBRA model, I will discuss this issue further with the 
committee and make a recommendation.
    Question. Do you think the office of the Comptroller should play a 
greater role in developing these cost estimates?
    Answer. If confirmed, I will assess how great a role is appropriate 
as part of a review of the COBRA model.
                          financial management
    Question. What is your understanding of the efforts and progress 
that have been made in DOD since 1999 toward the goal of being able to 
produce a clean audit?
    Answer. I believe DOD is making substantial progress toward a clean 
audit. There is, however, a substantial amount of work still to do, 
including efforts to address some of the most difficult problems. If 
confirmed, I will pursue appropriate actions to ensure continued 
progress toward meeting clean audit goals.
    Question. Do you believe the Department's Financial Improvement and 
Audit Readiness (FIAR) plan will lead to achieving a clean audit 
opinion for DOD, or are changes in that plan necessary in order to 
achieve that goal?
    Answer. I do not have detailed knowledge of the FIAR plan, but if 
confirmed, I will study this issue further after consulting with the 
FIAR committee and others.
    Question. Do you believe that the Department can achieve a clean 
audit opinion through better accounting and auditing, or is the 
systematic improvement of the Department's business systems and 
processes a perquisite?
    Answer. Both business systems and improved processes are required.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. I have not had the opportunity to review all the 
information needed to provide a specific timeline. However, if 
confirmed, I will examine this issue more fully, including 
consideration of this committee's views as well as the resources needed 
for the audit, and provide an answer.
    Question. If confirmed, what role do you expect to play, and how do 
you expect to work with the CMO and Deputy CMO, in the effort to 
achieve a clean audit opinion?
    Answer. Better business practices and fully integrated business 
systems are a must to achieve and sustain a clean audit opinion.
    If confirmed, I will work with the CMO and Deputy CMO and make use 
of their skills to ensure better business practices and fully 
integrated business systems are in place to support the Department's 
audit opinion goals.
              cost overrruns on major acquisition programs
    Question. Last year, the GAO reported that DOD's Major Defense 
Acquisition Programs had experienced an estimated total (lifecycle) 
acquisition cost growth of $295 billion in constant fiscal year 2008 
dollars.
    Do you believe the Department can build and manage an affordable 
program with cost increases of this magnitude?
    Answer. I believe DOD must do everything possible to minimize 
acquisition cost growth, which can help ensure that we are able to 
provide our fighting forces the technology and capabilities needed to 
ensure their combat dominance.
    Question. If you believe these cost increases are a concern, what 
role, if any, do you see for the Comptroller in improving the accuracy 
of the cost estimates for major weapons programs?
    Answer. If confirmed, I would work with Program Analysis and 
Evaluation leaders, my staff, and others to scrutinize cost estimates--
because they are essential components of our budget and management 
responsibilities.
    Question. The poor performance of major defense acquisition 
programs has been attributed in part to instability in funding and 
requirements.
    What steps would you plan to take, if confirmed, to increase the 
funding and requirements stability of major defense acquisition 
programs?
    Answer. If confirmed, I would make stability a pivotal priority 
during DOD deliberations on funding and requirements. We must look at 
all programs and especially those that are early in their program 
lives, and try to ensure that enough funds are available to avoid 
slowdowns due to lack of funding.
    Question. Would you agree that early communication between the 
acquisition, requirements, and budget communities is critical to 
establishing acquisition programs on a sound footing?
    Answer. Yes, early and detailed communication is critical.
    Question. What steps would you plan to take, if confirmed, to 
improve such communication?
    Answer. If confirmed, I would work to ensure such communications 
are an integral part of DOD processes on acquisition, requirements, and 
especially on budgets.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
(Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                      supplemental budget requests
    1. Senator Akaka. Mr. Hale, section 1008 of the National Defense 
Authorization Act for Fiscal Year 2007 required the President's budget 
to include funding for ongoing military operations that are 
traditionally included in supplementals. In your response to the 
advance policy questions, you stated: ``the negative aspects of 
supplementals can be minimized by ensuring Department of Defense (DOD) 
scrutiny of supplemental requests similar to that afforded the base 
budget (a policy endorsed by the President-elect) and by providing 
Congress with early information regarding supplemental requests.'' If 
confirmed, what steps are you going to take to include traditional 
supplemental requirements in the DOD planning, programming, budgeting, 
and execution process for the fiscal year 2011 budget?
    Mr. Hale. DOD needs to move away from supplementals, using them 
only for truly unexpected costs. Working with others in DOD and with 
the Office of Management and Budget, I expect to work to achieve this 
goal. I hope to make progress in the fiscal year 2010 budget and 
achieve the goal by the fiscal year 2011 budget.

                        chief management officer
    2. Senator Akaka. Mr. Hale, in May 2007, the Secretary of Defense 
designated the Deputy Secretary of Defense as the Chief Management 
Officer (CMO) of DOD. The CMO position was developed to address 
management challenges that have plagued DOD for years. The CMO was 
charged with establishing performance goals and measures for improving 
and evaluating overall economy, efficiency, and effectiveness, and to 
monitor and measure the progress of the Department. What is your 
understanding of the relationship between the Under Secretary of 
Defense (Comptroller) and the CMO?
    Mr. Hale. My relationship with the Deputy Secretary of Defense in 
his capacity as CMO will be to do my utmost to ensure that the 
Department's business systems and processes are unified, standardized, 
and integrated. I will also take an active role in supporting the CMO 
in defining, establishing, and reporting business operations 
performance metrics that provide leading indicators of effective DOD 
operations.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
   survivor benefit plan/dependency and indemnity compensation offset
    3. Senator Bill Nelson. Mr. Hale, for 8 years I have worked to 
eliminate the unjust offset between the DOD Survivor Benefit Plan (SBP) 
and the Department of Veterans Affairs Dependency and Indemnity 
Compensation (DIC). Under current law, if the surviving spouse of a 
servicemember is eligible for SBP, that annuity is offset by the amount 
of DIC received. I would like to work with DOD to devise a plan to 
eliminate the offset over time; it is the least we can do for the 
widows, widowers, and orphans of our servicemembers. What is the proper 
balance of discretionary and mandatory spending that will not only 
ensure our national defense, but will also take care of our 
servicemembers, veterans, and their families?
    Mr. Hale. The offset to SBP for simultaneous DIC entitlement is 
fair, reasonable, and equitable. Allowing one to receive both 
annuities, without offset, would create an inequity by giving dual 
lifetime annuities to certain survivors while survivors of other 
deceased former military members would continue to receive only one or 
the other.
    If current levels of the annuity for survivors of members who die 
from service-connected causes are deemed insufficient, the level of DIC 
should simply be recalibrated, ensuring there are no winners and 
losers--simply that all similarly situated families benefit from an 
appropriate annuity level defined by Congress.

    4. Senator Bill Nelson. Mr. Hale, what would a plan look like that 
would eliminate the SBP-DIC offset over 4 years and over 10 years?
    Mr. Hale. As noted in the answer to the prior question, I do not 
favor eliminating the SBP-DIC offset and suggest that if current 
annuity levels for survivors of former military members who die of 
service-connected causes are deemed inadequate, the level of DIC should 
be reevaluated.

                base realignment and closure commission
    5. Senator Bill Nelson. Mr. Hale, in November 2005, the Base 
Realignment and Closure Commission (BRAC) of 2005 went into effect. 
Full funding of BRAC 2005 is imperative because the Services must build 
infrastructure to support the mandated force movements. Two BRAC 2005 
conclusions that affect Florida are the establishment of Initial 
Aircraft Training for the F-35 Lightening II Joint Strike Fighter and 
the beddown of the 7th Special Forces Group at Eglin Air Force Base. 
The BRAC 2005 law expires in 2011. Explain how DOD will support the 
Services' funding requests necessary to implement the BRAC 2005 law 
before expiration of the BRAC 2005 mandate.
    Mr. Hale. It is my understanding that the Department has directed 
the DOD components with BRAC realignments and/or closures to fully fund 
those actions to ensure implementation of each BRAC recommendation by 
the statutory deadline of September 15, 2011. As such, it is my 
understanding that all costs to implement BRAC are included in 
departmental budget requests (including supplemental requests) and in 
the Future Year Defense Program.

     navy decision to establish a second aircraft carrier homeport
    6. Senator Bill Nelson. Mr. Hale, in 2006, the Navy began an 
environmental impact statement to determine the environmental impact of 
homeporting additional surface ships at Naval Station Mayport, FL. 
Since 2005, congressional and military leadership have reaffirmed the 
importance of dispersing the Atlantic Fleet in two ports. In February 
2005, then Chief of Naval Operations, Admiral Clark, stated that it was 
his view that, ``over-centralization of the [carrier] port structure is 
not a good strategic move . . . the Navy should have two carrier-
capable homeports on each coast.'' He went on to say, ``. . . it is my 
belief that it would be a serious strategic mistake to have all of 
those key assets of our Navy tied up in one port.''
    Deputy Secretary of Defense Gordon England, as the former Secretary 
of the Navy, testified to the Senate Armed Services Committee that the 
Navy needed to disperse its Atlantic coast carriers: ``My judgment is 
that [dispersion] is still the situation . . . a nuclear carrier should 
be in Florida to replace the [U.S.S. John F.] Kennedy to get some 
dispersion.''
    The current Chief of Naval Operations, Admiral Roughead, 
recommended to Secretary of the Navy Winter that Naval Station Mayport 
should be made capable of homeporting a nuclear aircraft carrier 
homeport to reduce the risk to our Atlantic Fleet carriers should 
Norfolk become incapacitated. The current Chairman of the Joint Chiefs 
of Staff, Admiral Mullen, agrees with Admiral Roughead's 
recommendation.
    On January 14, the Navy made its decision to make Naval Station 
Mayport a carrier homeport and plans to request the necessary funding 
for its implementation in its fiscal year 2010 budget request. 
Understanding the fiscal challenges facing our country and the 
constrained defense budget, how will you approach this funding priority 
among the many priorities facing the military?
    Mr. Hale. If confirmed, I will review the implications of this 
decision with the Navy, and the impact, if any, on the fiscal year 2010 
and future budget requests. At such time, I would be willing to provide 
Congress an update on specifics once the review is completed.

    7. Senator Bill Nelson. Mr. Hale, the principle of strategic 
dispersal is decades old. What is your understanding of the principle 
of strategic dispersal and what are your thoughts of Secretary of the 
Navy Donald Winter's implementation of this principle with respect to 
Naval Station Mayport?
    Mr. Hale. You raise a good question that would require more study 
on my part, if confirmed. I am not yet familiar with all the details 
and potential impacts with Secretary Winter's decision to implement 
strategic dispersal on the east coast, but I am committed to review the 
matter thoroughly and respond to your question in the near future.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                              clean audit
    8. Senator Bayh. Mr. Hale, the DOD budget continues to grow by 
billions annually. How close to a clean audit do you believe DOD is 
today?
    Mr. Hale. I have not yet completed my review of all the information 
needed to provide a specific timeline. However, there are many 
difficult tasks still to be completed before DOD receives a clean or 
unqualified opinion. I expect that DOD will not achieve that goal any 
sooner than the date specified in the latest Financial Improvement and 
Audit Readiness report--which stated that major statements would be 
audit ready by 2017.

    9. Senator Bayh. Mr. Hale, what steps do you believe will be 
necessary to take in order to perform a clean audit?
    Mr. Hale. DOD is making progress towards an unqualified audit 
opinion. However, there are many difficult steps yet to be achieved. 
These include but are not limited to implementing integrated business 
systems, achieving an auditable funds balance with Treasury, and 
resolving valuation issues such as those associated with military 
equipment. The Department must also continue to improve its financial 
controls.

    10. Senator Bayh. Mr. Hale, what benefits or savings do you believe 
could be realized by such an audit?
    Mr. Hale. An unqualified audit opinion provides evidence that the 
financial systems of an entity provide reliable, accurate, and timely 
information for management decisionmaking. Informed decisionmaking 
leads to cost saving and/or cost avoidance. There is also a benefit to 
citizens and taxpayers in that an unqualified audit opinion validates 
their confidence in their government to manage, protect, and use their 
resources well by proving the Department's books are reliable and 
accurate.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                        active-duty end strength
    11. Senator McCain. Mr. Hale, the President-elect and the Secretary 
of Defense have endorsed significant increases in the Active-Duty 
strengths of the Army and Marine Corps and these Services have been 
working hard to accelerate this growth. Please discuss your concerns 
about the rising cost of personnel and how you anticipate this will 
affect the ability of the Services to recapitalize its equipment.
    Mr. Hale. I am concerned about the rising cost of personnel in our 
DOD budget. Of course, we must continue to compensate our military 
people adequately, and we must take good care of military families. At 
the same time, we must also address rising costs in order to have the 
resources to upgrade military equipment, systems, and facilities. For 
example, we must do more to control the escalating cost of health care 
for our military. These difficult trade-offs will need to be made--both 
by the executive branch and Congress--during program and budget 
reviews.

                retirees and the cost of dod health care
    12. Senator McCain. Mr. Hale, for the last 3 years, the 
administration has tried--without success--to gain approval for 
increases in the annual premiums for DOD-provided health care paid for 
by military retirees under the age of 65. What are your views about the 
need for change in this regard?
    Mr. Hale. The proposed increases in TRICARE premiums included with 
the fiscal year 2009 DOD budget was based on recommendations of the 
Task Force on the Future of Military Healthcare, which DOD established 
as directed by the National Defense Authorization Act for Fiscal Year 
2007. I expect that--during upcoming program and budget reviews--the 
new administration will analyze options regarding the large and growing 
cost of TRICARE, and I look forward to helping with that analysis.

                      defense business board view
    13. Senator McCain. Mr. Hale, the Defense Business Board (DBB), an 
internal management oversight board established by Secretary Gates, 
recently warned that the DOD's budget is ``unsustainable'' and that the 
Department can only meet its priorities if it makes hard budget 
decisions on its largest and costliest acquisition programs. ``Business 
as usual [in terms of the Department's budget decisions] is no longer 
an option,'' warned the Board. Do you agree with the DBB's warning?
    Mr. Hale. Yes, business as usual is no longer an option. President 
Obama and Secretary Gates have underscored that change is needed and 
vowed to make acquisition reform a top priority.

    14. Senator McCain. Mr. Hale, what principles will guide your 
thinking on possible cuts to large acquisition programs?
    Mr. Hale. Acquisition programs must be able to deliver the required 
capability on schedule and at or under cost. The capabilities they 
provide must not be duplicative of other acquisitions, and these 
capabilities must be integral components of the overall portfolio of 
capabilities that the Department needs to accomplish its mission. We 
will review programs to ensure that they have the required 
technological and production maturity to enable successful delivery of 
the required capability to the warfighter according to schedule, and at 
cost. Programs lacking this maturity may be candidates for termination 
or restructure, depending on their potential contributions to our 
mission accomplishment. Cuts to large acquisition programs will also be 
evaluated against the capabilities they provide to ensure 
accomplishment of the Department's mission to defend our Nation, its 
interests, and our allies. We will review acquisitions to determine 
which best address requirements of near-term engagements and current 
known threats, and fund the highest priority acquisition programs that 
address these areas. At the same time, we will also ensure that we do 
not neglect the need for increased capabilities to meet increased or 
new threats in the future. As standard practice, we will align our 
acquisitions to stay within our funding topline and always strive to 
get the best value for our resources.

               reforms for procurement of weapons systems
    15. Senator McCain. Mr. Hale, over the last few years, this 
committee has developed several legislative initiatives intended to 
reform the process by which the Department buys its largest and most 
expensive weapons systems. The preponderance of those initiatives have 
addressed acquisition policy and the requirements system. Are there any 
aspects of acquisition policy, the requirements-determination system, 
or the resource allocation process that you believe require additional 
reform?
    Mr. Hale. Yes, we need reforms in the areas I listed in my answer 
to question 14 above.

    16. Senator McCain. Mr. Hale, the Department recently instituted 
several reforms to the DOD Instructions on how the Defense Acquisition 
System (DAS) operates. Those initiatives seek to start major 
acquisition programs off responsibly by increasing emphasis on systems 
engineering and greater upfront planning and management of risk, as 
well as utilization of competitive prototyping in a newly-named 
Technology Development Phase (before Milestone B). Are there any 
aspects of those newly instituted instructions (or the newly structured 
DAS) with which you have difficulty or intend to modify or repeal?
    Mr. Hale. I think the recent changes to defense acquisition policy 
reflect the Department's commitment to achieving improved acquisition 
outcomes by reducing risk, and improving process discipline. I believe 
the new policies are sound and I support them. If confirmed, I plan to 
closely monitor the execution of these policies and contribute to the 
success of these important initiatives.

    17. Senator McCain. Mr. Hale, among the reforms that this committee 
and the Department have instituted include those that enable the 
Department to remove more effectively nonessential requirements; have 
the Department move towards employing fixed-type contracts while better 
incentivizing contractor performance; and require the Department to 
exercise better oversight of service contracts. Are there any aspects 
of those initiatives in particular with which you have difficulty or 
intend to modify or repeal?
    Mr. Hale. No, I believe these are effective initiatives and I will 
support them. Each of the policies mentioned is designed to improve the 
operation of our acquisition system and enhance oversight of our 
substantive investments in our major defense acquisition programs and 
contract services. If confirmed, I plan to monitor the effectiveness of 
these policies to ensure that the desired outcomes are being achieved.

                relocation of u.s. marines from okinawa
    18. Senator McCain. Mr. Hale, the current estimate for the costs to 
relocate the marines from Okinawa to Guam is at least $10 billion, with 
the Government of Japan directly contributing $2.8 billion. The 
remainder will be funded by DOD through military construction or loans 
paid back through future housing allowances. With all the other 
modernization, recapitalization, and reset requirements facing the 
Department in the next 4 years, in your opinion, can we afford this 
move?
    Mr. Hale. The Department is committed to this relocation 
initiative, and I support it. This investment provides assurance of the 
U.S. commitment to security and strengthens deterrent capabilities in 
the Asia-Pacific region. The Japanese Government may commit up to $6 
billion in total funding for this initiative. During upcoming program 
and budget reviews, the Department will balance the fiscal commitment 
required to move forward with this initiative against other high-
priority initiatives.

    19. Senator McCain. Mr. Hale, there has also been discussion about 
the significant investment necessary to upgrade port, road, and utility 
infrastructure on Guam to support the stationing of marines and their 
families. Do you believe DOD should assume this financial obligation as 
well?
    Mr. Hale. The Department recognizes the necessary investment 
associated with port, roads, and utility infrastructure on Guam 
resulting from the Marine Corps relocation. It is critical to 
thoroughly evaluate the broad Federal impact of this significant 
investment and partner with other Federal entities, such as the Guam 
Federal Interagency Task Force, to determine the financial obligation 
that the United States should assume for infrastructure on Guam. The 
Department is addressing Guam's needs that are directly related to 
maintaining an enduring presence in support of the military mission.
    Guam's infrastructure, namely the commercial port and the island's 
road network, require upgrades that will directly assist our ability to 
carry out the program and also benefit Guam. The Department, through 
the Defense Access Road (DAR) program, is preparing to address 
qualifying improvements to roadways, intersections, and bridges that 
are critical to executing the construction program for DOD.
    The Maritime Administration (MARAD) was designated the lead Federal 
agency for the Port of Guam Improvement Enterprise Program in Public 
Law 110-417, section 3512. As the lead Federal agency, the MARAD will 
manage the expenditure of Federal, non-Federal, and private funds made 
available for the project and provide oversight and project management 
through a prime contractor. DOD is working closely with MARAD to help 
facilitate their initiative to correct the issues at the port.
    DOD is also working to facilitate the necessary utilities solutions 
that will: meet the DOD mission; provide the widest benefit to the 
people of Guam; be technically and financially supportable by all 
participating parties; and be acceptable to the environmental 
regulators. DOD is working in collaboration with the Government of Guam 
officials to understand their needs and to determine the feasibility of 
utilities solutions that are mutually beneficial to DOD, the civilian 
community, and the regulatory agencies. Additionally, we are working 
with the Government of Japan to ensure that their equities are met in 
conjunction with the DOD's needs and the equities of the Government of 
Guam and the Consolidated Commission on Utilities. Concurrently, we are 
working with the environmental regulators to ensure that the solution 
set meets the requirements set by the regulatory standards.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
                          acquisition strategy
    20. Senator Martinez. Mr. Hale, as you have read, the Secretary of 
Defense wrote recently in Foreign Affairs, ``When it comes to 
procurement, for the better part of 5 decades, the trend has gone 
toward lower numbers as technology gains have made each system more 
capable. In recent years, these platforms have grown ever more baroque, 
have become ever more costly, are taking longer to build, and are being 
fielded in ever-dwindling quantities. Given that resources are not 
unlimited, the dynamic of exchanging numbers for capability is perhaps 
reaching a point of diminishing returns. A given ship or aircraft, no 
matter how capable or well-equipped, can be in only one place at one 
time.'' How do you intend to ensure that simple, effective and cost 
efficient systems are not replaced by cutting edge, yet highly 
expensive platforms our Nation is not willing to procure en mass?
    Mr. Hale. I believe that DOD must make trade-offs between 
performance and cost, especially early in the life of new programs, in 
order to ensure reasonably priced yet adequately capable weapon 
systems. Stability during the acquisition process is another key to 
ensuring reasonable prices. Working along with other offices in charge 
of acquisition, I expect to be an advocate for these and other process 
improvements necessary to improve DOD's acquisition system.

    21. Senator Martinez. Mr. Hale, how will you bring sensibility to 
the procurement process so we maintain the capacity to address the 
Nation's needs?
    Mr. Hale. As I said in my answer above, I intend to lead my staff, 
and work with other DOD offices, to help carry out the acquisition 
goals enunciated by Secretary Gates.

    22. Senator Martinez. Mr. Hale, what additional acquisition process 
improvements will you bring to the Pentagon?
    Mr. Hale. Discipline is the key to creating affordable weapons 
programs, especially discipline in the early stages of a weapon 
system's life cycle. The Under Secretary of Defense (Acquisition, 
Technology, and Logistics) is responsible for DOD acquisition process. 
Once the new Under Secretary takes office I plan to be helpful in 
identifying improvements.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                        upgrading aging systems
    23. Senator Collins. Mr. Hale, in your answers to the advance 
policy questions, you listed what you believe to be some of the major 
challenges confronting the next Under Secretary of Defense 
(Comptroller) and Chief Financial Officer. One of the biggest 
challenges for all the Services is the need to replace aging major 
equipment and weapons systems with newer and more technologically 
advanced systems in a cost effective manner. For example, DOD has spent 
countless hours and millions of dollars trying to develop the next 
generation aerial refueling tanker, and the Navy has a strong need to 
replace many of its aging warships. What is your fiscal plan to 
purchase these systems that DOD so desperately needs?
    Mr. Hale. Fiscal discipline will be a key to meeting the many 
budgetary challenges facing DOD. We must maintain an adequate force 
structure, but we also need to identify ways to hold down personnel 
costs (including health care costs) in order to free up resources 
needed to replace aging systems. We must buy a reasonable number of 
replacement systems, but we also need to make the hard trade-offs 
(including performance trade-offs) necessary to hold down the unit 
costs of the replacement systems. During upcoming program and budget 
reviews, I expect to be an advocate for the necessary fiscal 
discipline.
                                 ______
                                 
    [The nomination reference of Robert F. Hale follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert F. Hale, of Virginia, to be Under Secretary of Defense 
(Comptroller), vice Tina Westby Jonas, resigned.
                                 ______
                                 
    [The biographical sketch of Robert F. Hale, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Robert F. Hale
    Robert F. Hale currently serves as the Executive Director of the 
American Society of Military Comptrollers (ASMC). In that capacity he 
runs an 18,000 member association that provides a wide range of 
professional development activities for defense financial managers.
    From 1994 to 2001 Mr. Hale was appointed by the President and 
confirmed by the Senate as the Assistant Secretary of the Air Force 
(Financial Management and Comptroller). He was responsible for the Air 
Force budget and all aspects of Air Force financial management. During 
this period Mr. Hale oversaw submission of budgets that met Air Force 
needs in peace and war. He made numerous improvements in Air Force 
financial management and brought about substantial streamlining of 
processes. He also spearheaded creation of the first-ever certification 
program for defense financial managers.
    Mr. Hale served for 12 years as head of the defense unit of the 
Congressional Budget Office. His group provided defense analyses to 
Congress, and he frequently testified before congressional committees. 
He was a sought-after expert on the Federal budget, especially the 
defense budget, and spoke widely on budget topics.
    Before coming to ASMC, Mr. Hale directed a program group at LMI 
Government Consulting and, early in his career, he served on active 
duty as a Navy officer and worked for the Center for Naval Analyses.
    Robert Hale holds a BS with honors from Stanford University, as 
well as an MS from Stanford, and an MBA from George Washington 
University. He is also a Fellow in the National Academy of Public 
Administration and has served on the organization's task forces. Mr. 
Hale has served on the Defense Business Board and on the 
Congressionally-Mandated Task Force on the Future of Military Health 
Care. He is a former National President of the American Society of 
Military Comptrollers and is a Certified Defense Financial Manager with 
acquisition specialty.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Robert F. Hale 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert F. Hale.

    2. Position to which nominated:
    Under Secretary of Defense (Comptroller).

    3. Date of nomination:
    Intention to nominate issued January 8, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 21, 1947; Sacramento, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Kohn.

    7. Names and ages of children:
    Scott D. Hale, 30; Michael J. Hale, 28.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Washington University, MBA, 1976 (attended 1972-1976).
    Stanford University, MS, 1969 (attended 1969).
    Stanford University, BS, 1968 (attended 1964-1968).
    Armijo High School, 1964 (attended 1960-1964).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Executive Director, American Society of Military Comptrollers, July 
2005-present; 415 North Alfred Street, Alexandria, VA.

        Currently managing all aspects of a professional association 
        with 18,000 members. Created an ``easy-access'' program of 
        professional development, using internet and audio approaches 
        to meet new training needs. Significantly improved content of 
        Society's quarterly journal and its annual conference (a 
        premier training event for defense financial managers). 
        Successfully implemented major automation improvements at 
        Society headquarters. Improved organization's profitability 
        without raising member dues.

    Program Director and Consultant, LMI Government Consulting, May 
2001-July 2005; 2000 Corporate Ridge Road, McLean, VA.

        Served as program director for a group of about 20 
        professionals providing consulting services to Federal agencies 
        on acquisition topics. Inherited a group that was not 
        productive or profitable. Instituted major changes in business 
        processes that brought in new, high-quality business and 
        rendered the group profitable within a year. Also consulted for 
        Federal agencies on financial issues.

    Assistant Secretary (Financial Management and Comptroller), United 
States Air Force, March 1994-January 2001; 1130 Air Force Pentagon, 
Washington, DC.

        Nominated by the President and confirmed by the Senate, managed 
        all aspects of Air Force financial management. Oversaw creation 
        and defense of seven budgets and associated supplementals that 
        successfully met critical Air Force resource needs, both in 
        peacetime and during the Bosnian war. Worked successfully to 
        involve all key personnel in the budget process, especially 
        those in the Secretariat. Streamlined Air Force financial 
        business processes by overseeing implementation of three new 
        automated systems and shepherding implementation of four major 
        multi-service systems. Sharply reduced antideficiency act cases 
        and credit card delinquencies by devoting personal attention to 
        these problem areas. Accomplished first full audit of an Air 
        Force financial statement. Created a new office to improve 
        base-level financial services. Also spearheaded creation of a 
        new certification program for defense financial managers, which 
        has now become an important part of their training. Longest 
        serving Assistant Secretary in the history of the office.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Defense Business Board, 2002-2007.
    Member, DOD Task Force on the Future of DOD Health Care, 2006-2007.
    Member, Task Force on Fiscal Futures, National Academy of Public 
Administration, 2008-present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    RFH Consulting, single-person consulting firm doing limited work 
for private companies and DOD, 2001-present.
    Member, National Executive Committee, American Society of Military 
Comptrollers (nonprofit society devoted to professional development).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, National Academy of Public Administration.
    Executive Director, American Society of Military Comptrollers.
    Member, Association of Government Accountants.
    Member, National Contract Management Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    10/23/08, Obama for America - $1,000.
    9/21/08, Obama for America - $1,000.
    9/22/08, Connolly for Congress - $250.
    7/28/08, Obama for America - $500.
    5/6/06, Democratic Senate Committtee - $500.
    9/17/06, Democratic Congressional Campaign - $500.
    9/29/06, Fairfield-Suisan CA, Save the Farms, $250.
    4/3/04, Kerry for President - $500.
    6/27/04, Kerry for President - $1,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    DOD Exceptional Public Service Award.
    Air Force Distinguished Service Award.
    National Defense Medal.
    Fellow, National Academy of Public Administration.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Defense and Deficits,'' Armed Forces Comptroller Journal, Spring 
2004.
    ``The Graying of Federal Financial Management,'' Journal of 
Government Financial Management, Spring 2003.
    ``Promoting Efficiency in the Department of Defense: Keep Trying, 
But Be Realistic,'' Center for Strategic and Budgetary Assessments, 
January 2002.
    Authored numerous reports on defense financial management during 
service as a Federal employee with the Congressional Budget Office 
(1975-1994).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No formal, written speeches.
    Many informal speeches, mainly to chapters of the American Society 
of Military Comptrollers.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Robert F. Hale.
    This 13th day of January, 2009.

    [The nomination of Robert F. Hale was reported to the 
Senate by Chairman Levin on February 5, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 9, 2009.]
                              ----------                              

    [Prepared questions submitted to Michele Flournoy by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. We now have a generation of military leaders 
for whom operating in a coordinated and joint, multi-service 
environment is the norm. Given these successes, I do not see the 
immediate need to change the provisions of this legislation.
    I have co-authored a number of studies that have advocated using 
the Goldwater-Nichols Act as a point of departure for enhancing 
interagency unity of effort and the capabilities of America's non-
military instruments of statecraft. If confirmed, I would hope to be in 
a position to help strengthen the U.S. Government's ability to craft 
effective whole of government approaches to the national security 
challenges we face.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my previous answer.
                             relationships
    Question. What is your understanding of the relationship between 
the Under Secretary of Defense for Policy (USD(P)) and each of the 
following:
    Question. The Secretary of Defense.
    Answer. The USD(P) serves as the principal staff assistant and 
advisor to the Secretary of Defense for all matters concerning the 
formulation of national security and defense policy and the integration 
and oversight of DOD policy and plans to achieve national security 
objectives. The USD(P) provides policy support to the Secretary in 
interagency fora (such as National Security Council and Homeland 
Security Council deliberations), engagement with international 
interlocutors, and in the Planning, Programming, Budgeting, and 
Execution (PPBE) processes inside the Department, including the 
Quadrennial Defense Review (QDR), the Nuclear Posture Review (NPR), and 
annual program and budget reviews.
    Question. The Deputy Secretary of Defense.
    Answer. The Under Secretary for Policy provides similar support to 
the Deputy Secretary as described above.
    Question. The other Under Secretaries of Defense, including the 
Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary for Policy works closely with the other 
Under Secretaries of Defense to achieve the Secretary's objectives. 
This includes providing policy input, as appropriate, to each of them 
in their respective areas of responsibility. In addition, the USD(P) 
works closely with the Under Secretary of Intelligence and other 
intelligence officials to ensure that policy formulation and execution 
are well-informed and supported by intelligence.
    Question. The Assistant Secretaries of Defense.
    Answer. The USD(P) exercises authority, direction, and control over 
the Principal Deputy USD(P), and the Assistant Secretaries of Defense 
for International Security Affairs, Asian and Pacific Affairs, Global 
Security Affairs, Special Operations and Low-Intensity Conflict and 
Interdependent Capabilities, and Homeland Defense and Americas' 
Security. This team works together to provide the Secretary with advice 
and recommendations on the full range of policy issues under 
consideration in the Department and provides policy oversight to ensure 
that the Secretary's guidance and decisions are implemented properly.
    Question. The Secretaries of the Military Departments.
    Answer. The USD(P) works closely with the secretaries of the 
military departments on a broad range of issues, including strategy 
development, force planning, and other areas in which the military 
departments are critical stakeholders.
    Question. The General Counsel of the Department of Defense (DOD).
    Answer. The USD(P) works closely with the General Counsel on all 
policy issues that involve a legal dimension. In practice, this means 
significant and regular coordination on a broad range of issues.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President, and the National Security Council, the Chairman 
has a unique and critical military role. The USD(P) works closely with 
the Chairman and Vice Chairman to support the efforts of the Secretary 
and Deputy Security, and to ensure that their military advice is taken 
into account in an appropriate manner.
    Question. The Commanders of the Regional Combatant Commanders.
    Answer. The USD(P) also works closely with the regional combatant 
commanders to support the efforts of the Secretary and Deputy Security, 
particularly in the areas of regional strategy and policy, contingency 
planning, and policy oversight of operations.
          duties of the under secretary of defense for policy
    Question. Section 134 of title 10, U.S.C., provides that the USD(P) 
shall assist the Secretary of Defense in preparing written policy 
guidance for the preparation and review of contingency plans, and in 
reviewing such plans. Additionally, subject to the authority, 
direction, and control of the Secretary of Defense, the Under Secretary 
shall have responsibility for supervising and directing activities of 
DOD relating to export controls. Further, subject to the authority, 
direction, and control of the Secretary of Defense, the USD(P) is 
responsible for overall direction and supervision for policy, program 
planning and execution, and allocation and use of resources for the 
activities of the DOD for combating terrorism.
    DOD Directive 5111.1 reiterates these duties and specifically notes 
that the USD(P) is the principal staff assistant and advisor to the 
Secretary of Defense and the Deputy Secretary of Defense for all 
matters on the formulation of national security and defense policy and 
the integration and oversight of DOD policy and plans to achieve 
national security objectives.
    What is your understanding of the duties and functions of the 
USD(P) under current regulations and practices?
    Answer. If confirmed, I will perform the duties set forth in title 
10 and the DOD Directive. The USD(P) serves as the principal staff 
assistant and advisor to the Secretary and Deputy Secretary of Defense 
for all matters concerning the formulation of national security and 
defense policy and the integration and oversight of DOD policy and 
plans to achieve national security objectives. Specifically the USD(P) 
directly supports the Secretary of Defense in the interagency process, 
in dealings with foreign counterparts, in developing strategy and 
planning guidance for the rest of the PPBE process, in providing policy 
oversight of current operations, and in guiding the development and 
review of contingency plans. He or she is the Secretary's principal 
policy adviser on the use of the U.S. military instrument and its 
adaptation for future missions.
    Question. What is your understanding of the responsibilities of the 
USD(P) in combating terrorism, in particular as differentiated from 
those of the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict (ASD(SOLIC))?
    Answer. The ASD(SOLIC) and Integrated Capabilities (IC) functions 
under the authority, direction, and control of the USD(P) in combating 
terrorism. In practice, ASD(SOLIC)/IC is often asked to provide direct 
support to the Secretary on sensitive operational material.
    Question. Assuming you are confirmed, what additional duties and 
functions do you expect that the Secretary of Defense would prescribe 
for you?
    Answer. I look forward to speaking with him further about how I 
could best support his efforts beyond those set forth in section 134(b) 
of title 10.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have had the privilege of spending more than 20 years 
working on a broad range of national security and defense issues, both 
in and out of government. From my time in university and graduate 
school wrestling with issues surrounding the Cold War and the Soviet 
nuclear arsenal, to my 5\1/2\ years spent in the Pentagon taking a lead 
role in formulating defense strategy in the immediate post-Cold War 
context for three different Secretaries of Defense, to my more recent 
roles in the think-tank community exploring U.S. policies to address 
the complex challenges of the post-September 11 era, I believe I have 
the policy background and management experience that would serve the 
country well if confirmed as the next USD(P).
                          contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. The USD(P) is specifically directed to assist the 
Secretary of Defense in preparing written policy guidance for the 
preparation and review of contingency plans and in reviewing such 
plans.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. I believe that civilian leadership is critical in the 
formulation of strategy and planning. Civilian defense leadership is 
particularly vital in translating broad national security policies and 
principles into the strategic ends that ultimately drive military 
planning.
    More specifically, the USD(P) supports the development of the 
President's National Security Strategy, leads the development of the 
defense strategy, establishes realistic objectives and guidance to form 
the basis for contingency planning, and reviews DOD plans and programs 
to ensure they support strategic objectives. The Chairman of the Joint 
Chiefs of Staff is a critical partner in the development of guidance 
for contingency planning and provides independent military advice to 
the Secretary of Defense and the President. In addition to the 
provision of written guidance, an important civilian role is to review 
contingency plans submitted for approval by the combatant commanders. 
The USD(P) is also responsible for facilitating interagency 
coordination on contingency planning efforts, as necessary.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy formulation and 
contingency planning?
    Answer. I believe that the United States is at a critical time in 
history--with multiple wars, enduring threats, and imminent challenges. 
From the need to redeploy forces in Iraq, strengthen commitments in 
Afghanistan, to the importance of combating terrorism and preparing for 
a future in which energy security and the rise of states like China and 
India will fundamentally alter the international environment, I believe 
that a strong civilian and military partnership on these issues is 
vital. If confirmed, I will examine this issue closely and seek to 
ensure that civilian leadership has the appropriate level of oversight 
on the full range of strategy, planning, and use-of-force issues.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy formulation and 
contingency planning?
    Answer. Given that we are at this critical point in history, I do 
feel that the strategy and planning capacity in the Office of the 
Secretary of Defense should be strengthened. From my time inside and 
outside of government, I have come to believe that the U.S. Government 
needs to fortify its capacity for strategic thinking and strategic 
planning to ensure that it not only deals with the challenges of today 
but is also well-prepared for those of tomorrow.
    If confirmed, I would strive to provide the best advice possible to 
the Secretary of Defense in fulfilling his responsibility to provide 
written policy guidance and to review contingency plans. I would also 
work closely with the Joint Staff to develop further opportunities to 
collaborate on planning guidance and reviews.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the USD(P)?
    Answer. If confirmed, my office will likely play an important role 
within the Department and the interagency process in developing policy 
for a number of key issues, including among others: responsibly ending 
the war in Iraq; ensuring that the United States develops and employs a 
more effective strategy in Afghanistan and the surrounding region; 
working to prevent nuclear and weapons of mass destruction (WMD) 
proliferation; combating terrorism; adapting the U.S. military for 21st 
century challenges; and strengthening America's alliances with key 
partners and allies. Beyond ensuring that the Secretary of Defense 
receives the best possible policy input on these vital questions, 
another major challenge will be to strengthen the organizational 
capacity to support these efforts.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would participate in a number of policy 
reviews, including the upcoming QDR, which provides an opportunity to 
assess these challenges and develop policy, plans, and investments to 
address them.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the USD(P)?
    Answer. If confirmed, I would give priority to the major challenges 
identified above and to strengthening the organizational capacity of 
the Office of the Secretary of Defense Policy to address them. I would 
also give priority to ensuring effective working relationships with 
both military and civilian counterparts through the Department and the 
interagency.
                                  iraq
    Question. The U.S.-Iraqi Status of Forces Agreement (SOFA) requires 
that U.S. combat forces withdraw from cities and towns by June 2009 and 
that all U.S. forces withdraw from Iraq by the end of December 2011. 
Additionally, if Iraqi voters reject the SOFA in a referendum scheduled 
for July 2009, U.S. troops would be required to withdraw by July 2010.
    What, in your view, are the greatest challenges facing the 
Department in meeting these deadlines and what actions, if any, would 
you recommend to maximize the chances of meeting these requirements?
    Answer. The challenge in Iraq will be to continue the phased 
redeployment of U.S. forces while maintaining a secure environment to 
support elections, political reconciliation, and economic development. 
If confirmed, I would review DOD plans and work with colleagues across 
the Department to make any necessary recommendations to the Secretary 
of Defense.
    Question. What is your understanding and assessment of U.S. plans 
to support implementation of the SOFA requirements for repositioning 
and redeployment of U.S. forces, including contingency planning 
relating to the Iraqi referendum?
    Answer. I have not had the opportunity to review detailed plans 
regarding the repositioning and redeployment of U.S. forces in Iraq. If 
confirmed, I would review such plans and make any necessary 
recommendations to the Secretary of Defense.
    Question. To date, U.S. taxpayers have paid approximately $48 
billion for stabilization and reconstruction activities in Iraq while 
the Iraqi Government has accrued a budget surplus of tens of billions 
of dollars. On April 8, 2008, Ambassador Crocker told the committee 
``the era of U.S.-funded major infrastructure is over'' and said the 
United States is no longer ``involved in the physical reconstruction 
business.''
    What do you believe is the appropriate role for the United States 
in reconstruction activities in Iraq going forward?
    Answer. I support the President-elect's views on bringing in Iraq's 
neighbors to help with reconstruction efforts. I also believe American 
policy should continue to be supportive in working with and through our 
Iraqi partners and that the U.S. role in reconstruction should focus on 
capacity development and assisting our Iraqi partners in prioritizing, 
planning, and executing their reconstruction projects.
    Question. What are your views on the responsibility of the Iraqi 
Government to assume the cost of training, equipping, and operations 
for its security forces?
    Answer. I believe that a critical part of our strategy depends on 
ensuring that the Iraqi Government assumes control of the entire range 
of tasks necessary to organize, train, and equip its security forces. 
From DOD's perspective, this includes helping our Iraqi partners to 
formulate a defense strategy and acquisition policy that is prudent and 
practical given finite resources.
    Question. What are your views on the responsibility of the Iraqi 
Government to share the cost of combined operations with Multi-National 
Forces-Iraq (MNF-I) forces and stability programs throughout Iraq?
    Answer. I understand that the U.S. Government has not requested the 
Iraqis contribute to the costs of MNF-I operations. A key objective is 
for Iraq to develop and fully support its forces in order to assume 
responsibility for its own security and stability.
    Question. What are your views on the responsibility of the Iraqi 
Government to share the increased operating and facilities costs 
associated with repositioning or withdrawal of U.S. forces in 
accordance with the U.S.-Iraqi SOFA?
    Answer. My understanding is that under the U.S.-Iraqi Security 
Agreement, there is no Iraqi responsibility to pay costs associated 
with repositioning or withdrawal of U.S. forces. I believe the U.S. 
Government should encourage Iraq to focus on the development and 
support of its security forces.
                              afghanistan
    Question. What is your understanding and assessment of our 
strategic objectives in Afghanistan?
    Answer. Our strategic objective is a stable and secure Afghanistan 
in which al Qaeda and the network of insurgent groups, including the 
Taliban, are incapable of seriously threatening the Afghan state and 
resurrecting a safe haven for terrorism. We are a long way from 
achieving this objective. If confirmed, I look forward to working with 
the committee on this enormous challenge, which requires urgent and 
sustained attention.
    Question. What changes, if any, would you recommend to our current 
strategy in Afghanistan?
    Answer. Achieving our strategic objectives in Afghanistan will 
require a more integrated and comprehensive approach to security, 
economic development, and governance. All of the instruments of 
national power and persuasion must be harnessed in order to be 
successful. It is imperative that we improve coordination and 
cooperation between Afghanistan and its neighbors and that we achieve 
greater unity of effort among our coalition partners, international 
institutions, and the Government of Afghanistan.
    Question. Do you believe that there is a need to develop a 
comprehensive civil-military plan for Afghanistan, akin to that used in 
Iraq?
    Answer. Yes.
    Question. How do you assess the contributions of North Atlantic 
Treaty Organization (NATO) allies to the effort in Afghanistan, and how 
do you believe that the United States can persuade these allies to 
increase their efforts as the United States does so?
    Answer. Afghanistan would be less secure without the contributions 
and sacrifices of our NATO allies and other International Security 
Assistance Force (ISAF) partners. President-elect Obama and Secretary 
Gates have both called for greater contributions with fewer caveats 
from our NATO allies. By committing more of our own resources to the 
challenge, the United States will be better positioned to persuade our 
allies to do more.
    Question. General David McKiernan, USA, Commander of the NATO ISAF 
and Commander, U.S. Forces-Afghanistan, has identified a need for four 
additional combat brigades and support units in Afghanistan.
    Do you support General McKiernan's request for additional forces? 
If so, would you support drawing down U.S. forces in Iraq faster in 
order to meet General McKiernan's request?
    Answer. President-elect Obama and Secretary Gates have both 
consistently stated that they believe the deteriorating security 
conditions in Afghanistan required additional U.S. and international 
forces. If confirmed, I look forward to talking with them and the 
Chairman of the Joint Chiefs of Staff and others to determine how DOD 
can best support that request. Balancing the demand for forces between 
Iraq and Afghanistan while ensuring that the military is ready for 
other contingencies will be one of the Department's key challenges and, 
if confirmed, I look forward to working with those in the Department 
responsible for this as well as with this committee.
    Question. What is your understanding and assessment of the 
Department's plans for the continued rotational flow of combat brigades 
and other units necessary to support operations in Iraq through 2009 
and the availability of the additional combat brigades as requested by 
General McKiernan?
    Answer. Though I have not been briefed in detail, I understand that 
the Department is preparing plans for the requirements for Iraq and 
Afghanistan as currently understood. If confirmed, I will consult with 
the Chairman of the Joint Chiefs of Staff and senior commanders to 
examine the plans in detail as the law requires my office to do.
    Question. How would the Department support combat brigade increases 
in Afghanistan without extending combat brigades or redeploying combat 
brigades without replacement in Iraq?
    Answer. Managing the build-up of forces in Afghanistan must be 
balanced with the demands in Iraq and the necessity to restore full 
spectrum readiness. We have asked a great deal of our service men and 
women, and I am acutely aware of the costs to them and to their 
families of extended and repeated deployments.
    Question. The goal for increasing the size of the Afghan National 
Army (ANA) has been revised from 68,000 to approximately 134,000 
soldiers.
    Would you support a surge of trainers from the United States and 
coalition partners into Afghanistan to accelerate the expansion of the 
ANA?
    Answer. Building an effective, broadly representative, and 
respected ANA will require additional resources. If confirmed, I will 
work with the Services, senior commanders, and our international 
partners to make sure that we have the right number of trainers, 
mentors, and advisors with sufficient resources to accomplish their 
mission.
    Question. What recommendations, if any, would you have for 
encouraging or enabling our coalition partners to provide more training 
team personnel to embed with ANA units?
    Answer. Developing the ability of the Afghan National Security 
Forces to assume the front-line responsibility of security inside 
Afghanistan should be the greatest incentive for coalition partners to 
provide training team personnel. We must stress to our allies the long-
term commitment of the United States to Afghanistan and the shared 
responsibility NATO has to develop Afghan forces so that they can 
eventually take the lead for security in Afghanistan.
    Question. One of the main threats to U.S. and coalition forces in 
Afghanistan comes from cross-border attacks by the Taliban and 
extremist militants who find safe haven in Pakistan's border regions.
    What steps in your view need to be taken to eliminate the threat 
posed by Taliban and extremist militants hiding out across the 
Afghanistan-Pakistan border?
    Answer. Both President-elect Obama and Secretary Gates have cited 
the need to eliminate the terrorist sanctuary in the border regions of 
Pakistan, but there is no purely military solution. The United States 
must have an integrated strategy to promote development and prevent 
terrorism across the Afghanistan-Pakistan border region. If confirmed, 
I intend to work closely with my DOD and interagency colleagues to 
examine several potential components of such a strategy:

        <bullet> Work with the Pakistani Government to strengthen the 
        capacity of the Pakistani military and police to conduct 
        counterterrorism and counterinsurgency missions;
        <bullet> Encourage Pakistani political reforms in the Federally 
        Administered Tribal Areas to better link the border regions to 
        the central government with more democratic representation;
        <bullet> Increase non-military economic assistance and support 
        for education and health care; and
        <bullet> Improve the partnership between Afghanistan, Pakistan, 
        and the coalition to secure the border, eliminate terrorist 
        camps, and reduce cross-border insurgent movement.

    Question. The ANA has shown itself to be effective, well-motivated, 
and respected by the Afghan people.
    Would you support giving the ANA the lead in stopping cross-border 
incursions, either by transferring the mission of patrolling the border 
to the ANA or by bringing the Afghan Border Patrol (ABP) under the ANA?
    Answer. Securing the border from cross-border incursions and 
illegal smuggling is an important component of a strategy for success 
in Afghanistan, but the specific command relationship between the ABP 
and ANA is an area that, if confirmed, I would need to examine in 
closer detail.
    Question. The cultivation of poppies and trafficking of opium has 
reached alarming proportions in Afghanistan. Some estimate that over 50 
percent of Afghanistan's gross national product is associated with the 
illegal opium trade and that Afghanistan is at risk of failing as a 
nation state. Coalition strategies for countering the opium trade have 
not been effective to date.
    In your view, what strategy would be most effective in reducing 
opium production and trafficking in Afghanistan?
    Answer. Opium traffic distorts the Afghan economy, corrodes the 
judicial system, and increases the incentives for corruption and 
criminal violence. Countering the opium trade must include a multi-
pronged coalition and Afghan strategy, including judicial reform, 
better law enforcement and intelligence sharing, and rural economic 
development.
    Question. What should the role of the U.S. military forces be in 
the counterdrug program in Afghanistan?
    What is the appropriate role for coalition nations and the larger 
international community in effectively addressing the counterdrug 
challenge in Afghanistan and the surrounding region?
    Answer. The international community must play a greater role in 
helping the Afghan Government to strengthen Afghan institutions, 
including the judicial and law enforcement system, intelligence 
service, and Afghan National Security Forces, so that it can better 
take the lead in combating narcotics in Afghanistan.
    Question. What are the main challenges facing the U.S. and 
international community's reconstruction efforts in Afghanistan?
    Answer. The deterioration of the security situation is the most 
immediate challenge, but reconstruction and development in Afghanistan 
also face more fundamental challenges. As one of the poorest countries 
in the world that has suffered through more than a generation of war, 
Afghanistan's development challenges are daunting. Four out of five 
Afghans make their living from farming, yet widespread drought and a 
crumbling agricultural infrastructure have created an opening for 
illicit opium production to supplant the legal agricultural economy. 
While Afghanistan has made significant strides since 2001 in health 
care delivery, life expectancy is still below 45 years and more than 
half of Afghan children are growth-stunted from poor nutrition and 
disease. While progress has been made towards primary education in 
Afghanistan, fewer than half of adult males and only one in eight 
females can read, impeding the professionalization of the Afghan 
Government and security forces and limiting economic growth.
    Question. What would be your priorities for addressing those 
challenges?
    Answer. If confirmed, I look forward to working with the 
interagency and international partners to help create a truly 
comprehensive civil-military strategy to build the necessary foundation 
for a stable and secure Afghanistan.
    Question. What changes, if any, would you recommend for the 
strategy, organizational structure, or resourcing of Provincial 
Reconstruction Teams in Afghanistan?
    Answer. Provincial Reconstruction Teams have been critical to the 
development work undertaken in Afghanistan over the past 6 years. If 
confirmed, I look forward to discussing the committee's concerns and 
ideas on the use of PRTs.
                                pakistan
    Question. What is your understanding and assessment of the efforts 
by the Pakistani Government to counter militant groups along the 
Afghanistan-Pakistan border and to fight terrorism in general?
    Answer. The Pakistani Government will, of course, be central to 
defeating the terrorist and cross-border insurgent groups that threaten 
Afghanistan, Pakistan, and the international community. Although the 
Pakistani Government has conducted a series of military operations 
against militants in the border region, the area remains a sanctuary 
for al Qaeda and Taliban-affiliated groups. If confirmed, I plan to 
focus significant time and energy to better understand the requirements 
to solve this particular challenge.
    Question. In your view, is the Pakistani Government doing enough to 
combat these threats? If not, what more should it be doing? What, in 
your view, should be the United States' approach vis-a-vis Pakistan?
    Answer. I have not had the opportunity to review Pakistan's most 
recent efforts in detail. If confirmed, I look forward to reporting 
back to the committee on my assessment of ways in which the United 
States and Pakistan can work better together to combat these shared 
threats.
                                 india
    Question. The recent attacks in Mumbai raise questions about what 
more might be done to help India guard against and react to terrorist 
incidents and underscore the fragile nature of the relationship between 
India and neighboring Pakistan.
    What is your view of the current state of U.S.-India military-to-
military contacts?
    Answer. I understand that the U.S.-India military-to-military 
relationship is quite positive and getting stronger. If confirmed, 
these are areas that I hope we can work on together.
    Question. What do you believe the United States should do to assist 
the Indian Government in the prevention of and response to terrorist 
events?
    Answer. As the world's largest democracy, India is a critical 
strategic partner of the United States. Both India and the United 
States share an interest in preventing terrorism. If confirmed, I will 
work with the State Department to carefully consider all requests for 
counterterrorism assistance from India.
    Question. In your view, what impact has this rise in tensions 
between Pakistan and India had on the stability of the South Asia 
region, generally, and on the prospects for security in Afghanistan?
    Answer. India, Pakistan, and Afghanistan are linked by history, 
culture, language, and trade, and regional stability cannot be achieved 
without the cooperation of all three. It is in America's national 
interest to play a constructive role in helping defuse the recent rise 
in tensions and to help derive from the tragic attacks in Mumbai an 
opportunity for further cooperation between three of America's crucial 
allies.
                             future of nato
    Question. What are the greatest challenges and opportunities that 
you foresee for NATO over the next 5 years?
    Answer. The United States has enormous stakes in a strong, mutually 
supportive NATO alliance, and both the President-elect and the 
Secretary of Defense have stressed their strong desire to rebuild and 
adapt transatlantic security relationships to meet 21st century 
security challenges. Over the next 5 years, top-tier NATO-related 
challenges include, first and foremost, achieving durable progress on 
Afghanistan, while also developing a common approach toward managing 
relations with Russia, improving the prospects for unity-of-action 
between NATO and the European Union (EU), and finding common ground 
across the alliance on emerging threats and opportunities.
    Question. Do you envision further enlargement of NATO, beyond 
Albania and Croatia, within the next 5 years?
    Answer. The President-elect has stated that NATO enlargement should 
continue so long as new candidates are democratic, peaceful, and 
willing to contribute to common security. Precisely which countries and 
within what applicable timeframe NATO would undertake further 
enlargement are important questions which the new administration will 
need to address in close consultation with Congress and our allies. It 
is important that each NATO aspirant should be judged on its individual 
merits and progress in implementing political, economic, and military 
reforms.
    Question. What more can the United States do to encourage NATO 
members to develop the capabilities and provide the resources necessary 
to carry out NATO missions in Afghanistan and elsewhere?
    Answer. While the President-elect and Secretary Gates have both 
stressed the need for the United States to invest more in its non-
military instruments of national power, many of our NATO allies are 
underperforming in terms of their own investments in defense 
capabilities, especially when it comes to deployable expeditionary 
forces. Forging a shared strategic view of the emerging threat 
environment and updating NATO's strategic concept will be critical to 
encouraging NATO allies to develop the military capabilities needed now 
and in the future.
                           nato-eu relations
    Question. A challenge facing the United States and NATO in the 
months and years ahead is the EU's implementation of its European 
Security and Defense Policy (ESDP), that is, an EU capability to 
conduct military operations in response to international crises in 
cases where ``NATO as a whole is not engaged.'' At the same time, NATO 
and EU are working alongside each other in addressing a number of 
common security challenges, including police training in Afghanistan 
and crisis management in Kosovo.
    Are you concerned that the EU could assume a competing role, rather 
than a complementary role, to the NATO alliance?
    Answer. Ideally, the NATO-EU relationship should be complementary. 
In the defense realm, NATO is going to be the preferred vehicle for 
negotiation whenever our European allies view the U.S. role as 
indispensable in responding to a shared security challenge. At the same 
time, the EU's great strength lies is its ability to project economic 
power and political influence in a way that helps to attenuate 
conflict. The Obama administration will need to look carefully at the 
relationship to ensure that competition is kept to a minimum. Moreover, 
because both NATO and the EU draw largely from a single pool of 
national capabilities, cooperation will be extremely important.
    Question. What steps do you believe that the United States and NATO 
must take to ensure that ESDP is implemented in a way that strengthens 
the alliance?
    Answer. Over the past several years, ESDP-related activities have 
grown in number and diversity, to include the EU's recently launched 
anti-piracy operations off the coast of Somalia. Given these trends, 
high priority should be given to promoting good communications and a 
common operating picture between the United States, its allies and 
partners, and EU-sponsored operations.
    Question. What is your view of the future of NATO-EU relations in 
areas relating to security, defense, and crisis management?
    Answer. Both NATO and the EU have important roles to play in 
meeting future security, defense, and crisis management challenges. As 
noted above, from an alliance perspective, it will be important for DOD 
and U.S. interagency partners to take a clear-eyed view of the entire 
range of current EU-activities--from civilian policing, to military, 
border control or other missions--to identify both areas of duplication 
and where closer coordination may be required.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
humanitarian de-mining operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military? If yes, would you advocate for expanding U.S. 
military-to-military engagement? If not, why not?
    Answer. If confirmed, I will support continued U.S. military-to-
military engagement. I believe the current and emerging security 
environment will require robust engagement with the militaries of our 
partners and allies around the world, and building productive 
relationships with many states in which our past military-to-military 
engagements have been limited or absent entirely.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. Yes. I believe military-to-military contacts contribute to 
U.S. national security in a variety of important ways. Such activities 
can build capacity among partner nations to participate in coalition 
operations to counterterrorism and other transnational threats, 
potentially relieving stress on U.S. forces. They can help harmonize 
nations' views of common security challenges. Military-to-military 
activities can also help sustain investments made by other U.S. 
assistance programs. Finally, when performed effectively, military-to-
military activities should show by example how military forces can act 
effectively while respecting human rights and civilian control. If 
confirmed, I intend to help ensure that our engagement activities 
remain at the forefront of our planning and strategy development 
processes.
                          stability operations
    Question. Experience in Iraq has underscored the importance of 
planning and training to prepare for the conduct and support of 
stability operations in post-conflict situations.
    In your view, what is the appropriate relationship between DOD and 
other departments of government in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. In stabilizing post-conflict environments, success depends 
upon the integrated efforts of both civilian and military organizations 
in all phases of an operation, from planning through execution. 
Ideally, civilian agencies should lead in areas such as fostering 
political reconciliation, building accountable institutions of 
government, restoring public infrastructure, and reviving economic 
activity. Military forces, in turn, are best suited to help provide a 
safe and secure environment and to assist in building accountable armed 
forces. The U.S. military has learned many hard lessons in this area 
over the past several years, and if confirmed, I will work closely with 
Secretary Gates, military leaders, and other U.S. Government agencies 
to ensure we have the capabilities we need to execute these challenging 
missions.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq?
    Answer. One of the most important lessons is that 21st century 
conflict will occur along the entire spectrum of conflict. That is, the 
military cannot be prepared only for combat. They must plan and train 
with their civilian counterparts and be prepared to operate effectively 
in all phases of conflict. That said, the military should also be 
prepared to undertake critical non-military tasks when civilian 
agencies cannot operate effectively, either due to the security 
environment or due to lack of capacity. Indeed, the need for greater 
capabilities and capacity in civilian agencies has been a recurring 
lesson for the entire government. Finally, we need to obtain better 
situational awareness of the underlying drivers--political, cultural, 
and economic--instability and conflict so as to ensure that our actions 
will meet our objectives and not trigger unintended consequences.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train-and-equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207).
    In your view, what are our strategic objectives in building the 
capacities of partner nations?
    Answer. One of the greatest threats to international security is 
the violence that is sparked when human security needs are not met by 
governments. This creates space for terrorists, insurgents, and other 
spoilers to operate and, as the September 11 attacks demonstrated, to 
threaten the United States and its allies. The goal, therefore, is to 
close this space through efforts that strengthen bilateral 
relationships; increase U.S. access and influence; promote militaries 
that respect human rights; civilian control of the military and the 
rule of law; and build capacity for common security objectives. In 
addition to promoting regional and global security, enhanced partner 
capacity reduces the risk of future military interventions and reduces 
stress on U.S. Armed Forces.
    Question. What is your understanding of the purpose of the section 
1206 global train-and-equip authority? What is your assessment of the 
implementation of the global train-and-equip program?
    Answer. My understanding is that section 1206 is intended to 
provide a quicker, more targeted ability to build partner capacity in 
critical regions than the more traditional routes of security 
assistance. Under law, it has two discrete purposes: to build a 
partner's national military or maritime security forces' capacity 
either to (1) conduct counterterrorism operations or (2) conduct or 
support stability operations where U.S. forces are participating. I 
have not been involved in section 1206 implementation, but I understand 
that the program has enthusiastic support from embassies and combatant 
commands and reflects a close collaboration between State and DOD who 
work together in a ``dual key'' process to approve funding allocations. 
If confirmed, I will assist the Secretary in fully assessing how well 
this authority is working and whether it meets congressional intent.
    Question. What is the relationship of the global train-and-equip 
authority to other security assistance authorities, such as 
counternarcotics assistance and foreign military financing? What should 
be done to ensure that the global train-and-equip authority does not 
duplicate the efforts of these other assistance programs?
    Answer. The Departments of State and Defense need to work together 
very closely to avoid duplication of effort among these important 
activities. The Global Train-and-Equip authority fills two specific 
legal requirements (to build capacity for counterterrorism and for 
stability operations where U.S. forces are a participant). Foreign 
Military Financing serves a broader set of diplomatic and foreign 
policy objectives such as improving bilateral relations, encouraging 
behavior in the U.S. interest, increasing access and influence, and 
building capacity particularly where host-nation and U.S. interests 
align.
    Counternarcotics authorities are focused on providing DOD the 
ability to support U.S. or other government efforts to counter the flow 
of narcotics globally. If confirmed, I will support any interagency 
assessment of potential overlaps and work to ensure DOD programs are 
focused on supporting U.S. and other agency efforts to counter the flow 
of narcotics.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (section 1207)? What is your 
assessment of how this authority has been utilized?
    Answer. Section 1207 was, as I understand it, designed to help the 
State Department's Coordinator for Reconstruction and Stabilization to 
become operational. It facilitates security, stabilization, and 
reconstruction missions--bringing civilian expertise to bear alongside 
or in lieu of U.S. military forces. If confirmed, I will monitor this 
effort closely.
    Question. Secretary Gates has called for an expansion of the 
Government's resources devoted to instruments of non-military soft 
power--civilian expertise in reconstruction, development, and 
governance.
    Do you agree with Secretary Gates that there is a need to expand 
the Government's resources devoted to the ability of civilian 
departments and agencies to engage, assist, and communicate with 
partner nations?
    Answer. Absolutely. The President-elect and Secretary Gates have 
both made clear their strong desire to see more robust non-military 
instruments of national power. Congress has the authority to expand 
significantly the Government's soft-power resources and U.S. civilian 
agency capacity. If confirmed, I will certainly make it my priority to 
assist in this effort.
    Question. In your view, what should be the role of the DOD, vis-a-
vis other civilian departments and agencies of the Government, in the 
exercise of instruments of soft power?
    Answer. Generally, the Department's role should be to support, not 
lead, in the exercise of soft power. But DOD plays a vital role in 
helping to promote--through the full gamut of planning effort, 
exchanges, exercises, operations, and bilateral defense relationships--
the conditions that enable these instruments to be applied with maximum 
beneficial effect.
    Question. Which department should have the lead in setting U.S. 
Government security assistance policy, the Department of State or DOD?
    Answer. The State Department should retain the overall lead in 
setting our foreign policy and foreign assistance priorities broadly, 
including security assistance. Still, DOD has critical roles to play in 
informing, developing, and implementing agreed programs in an effective 
and timely manner. Strong and close working relationships between DOD, 
the State Department, and other U.S. agencies are critical.
                                 russia
    Question. What is your assessment of the current U.S.-Russian 
security relationship?
    Answer. Russia's more aggressive external behavior--combined with 
its retreat from democracy and openness at home--is a source of deep 
concern. Of greatest concern, clearly, is a growing pattern of Russian 
pressures on, and, in some cases, aggressive action against the 
sovereign states located on its immediate borders, most notably 
Georgia. Russia's standing in the international community has declined 
as a result of its threatening behavior, and the U.S.-Russia security 
relationship has become much more difficult to manage as a result. That 
said, as Secretary Gates has noted, Russia's military capacity remains 
a shadow of its Soviet predecessor, and a combination of adverse 
economic and demographic trends are not likely to change that picture 
dramatically in the foreseeable future.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. As the President-elect has stressed, it is in no one's 
interest to see our relations return to a Cold War posture. Our 
interests clearly overlap in areas such as non-proliferation, 
counterterrorism, Afghanistan, and counternarcotics. Ultimately, I 
believe we should work to create the conditions that make clear that 
stable, democratic neighbors on Russia's borders are in Russia's own 
interest. We need to look at ways of enhancing cooperation in areas 
such as preventing WMD terrorism, where coordinated action is critical.
    Question. In your view, what policy steps should DOD take to 
improve relations with Russia? For instance, would you support 
increased military-to-military relations and exchanges with Russia?
    Answer. Yes, when it is in our interest to do so, and in close 
coordination with the State Department. If confirmed, I will make it a 
priority to assess areas where greater military-to-military and other 
exchanges with Russia might be beneficial. It is certainly important 
for U.S. security interests that we work to keep our lines of 
communication open.
    Question. Would you support any joint development or other programs 
with Russia?
    Answer. I am not prepared at this stage to offer any specific 
recommendations on this issue. If confirmed, I will study the issue 
closely and consult with interested members of this committee.
                                  iran
    Question. Do you believe it would be in the United States' interest 
to engage Iran in a direct dialogue to promote regional stability and 
security?
    Answer. I support the President-elect's view that the United States 
should be willing to engage with all nations, friend or foe, and with 
careful preparation, to pursue direct diplomacy. Furthermore, I fully 
support the President-elect's view that we should not take any options 
off the table, but that we should employ tough diplomacy, backed by 
real incentives and pressures, to prevent Iran from acquiring nuclear 
weapons and end their support of terrorist organizations such as 
Hezbollah.
    Question. Do you believe it would be in the United States' interest 
to engage Iran in a direct dialogue regarding the narcotics problem in 
Afghanistan?
    Answer. This issue should be examined as part of a broader 
interagency policy review on Iran.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program? Specifically, what actions do you believe that 
DOD should undertake to support diplomatic efforts to dissuade Iran 
from pursuing a nuclear weapon?
    Answer. The United States has not yet brought to bear all the 
elements of statecraft to deal with this issue. The use of tough, 
direct, and principled diplomacy, working with our other international 
partners and allies, can increase the chances of making useful inroads. 
Setting the conditions in the region is critical. DOD should therefore 
continue developing the ongoing multilateral cooperation with the Gulf 
Cooperation Council countries and other allies in the region, in 
support of the State Department's diplomatic initiatives.
                                 syria
    Question. Do you believe it would be in the United States' interest 
to engage Syria in a direct dialogue regarding regional security and 
stability?
    Answer. The Department of State should take the lead on any 
diplomatic initiatives with Syria. I agree with the President-elect's 
view that Syria is best engaged in the context of an aggressive 
regional diplomatic approach on the question of Iraq. Syria has a great 
and growing interest in ensuring that the large population of Iraqi 
refugees within its borders eventually returns home. I would hope that 
this topic would be examined when the new administration comes into 
office.
                              saudi arabia
    Question. What is your assessment of the current state of U.S.-
Saudi bilateral relations and defense cooperation activities? What 
changes, if any, would you recommend in this relationship?
    Answer. Saudi Arabia is an important ally of the United States. The 
United States and Saudi Arabia have a close defense relationship and 
extensive security assistance programs. If confirmed, I look forward to 
assessing ongoing cooperation activities and identifying ways to 
sustain this important relationship.
    Question. What is the future of U.S.-Saudi security cooperation, 
including training programs such as the Saudi Arabian National Guard 
Modernization program? What other types of military or security 
cooperation do you envision advocating?
    Answer. I have not been briefed on the details of current or 
prospective security cooperation programs with the Kingdom. If 
confirmed, I will consider and evaluate the full range of possible 
initiatives to support this relationship.
                                 china
    Question. China is viewed by some in the United States as a 
potential threat and by others as a potential constructive 
international partner that should be welcomed and integrated into the 
international economic and political community.
    To what extent do you believe the policies and actions of the 
United States and other major regional and international actors will 
affect the direction in which China develops, and the extent to which 
it becomes a cooperative partner or a competitor of the United States?
    Answer. China's sustained rise over the past decade is due in no 
small measure to its progressive integration into the global economy. 
For this reason, I believe that the United States and other countries 
can have positive influence on the direction of China's development. 
Indeed, no country has done more to assist, facilitate, and encourage 
China's development and international integration than the United 
States. However, U.S. policy and actions, or those of any country or 
group of countries, cannot alone determine China's future. Ultimately, 
it is the Chinese who will determine China's future.
    Furthermore, as Secretary Gates noted in a recent speech, ``China 
is a competitor but not necessarily an adversary, and there is no 
reason for China to become an adversary.'' If confirmed, I would seek 
to encourage China to play a responsible and constructive role in the 
international community and to encourage Beijing to view this role as 
the best choice for their own strategic interests, as well as ours.
    Question. What do you see as the impact of the current global 
economic crisis on stability and security in China specifically, and in 
the region generally?
    Answer. It is too early to gauge the full impact of the global 
economic crisis upon China and stability in the Asia-Pacific region 
more broadly. But those who manage defense and security issues must be 
attentive to the security-economic interconnections and be prepared to 
work together with colleagues in economic and diplomatic fields, both 
to guard against negative outcomes and also to seek positive ways 
forward where they may exist.
    Question. What do you believe are China's political-military 
objectives regarding Taiwan, the Asia-Pacific region, and globally?
    Answer. Broadly, the overriding objectives of China's leaders 
appear to be to ensure the continued rule of the Chinese Communist 
Party, continue China's economic development, maintain the country's 
domestic political stability, defend China's national sovereignty and 
territorial integrity, and secure China's status as a great power. 
Within this context, preventing any moves by Taipei toward de jure 
independence is a key part of Beijing's strategy. Within each dimension 
there lies a mix of important challenges and opportunities for the 
United States that will continue to deserve priority attention.
    Question. What is your view of the U.S. policy of selling military 
equipment to Taiwan, despite China's objections?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
Taiwan Relations Act, which provides that the United States will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability. That policy has contributed to peace and stability in the 
region for nearly 30 years and is consistent with the longstanding U.S. 
calls for peaceful resolution of the Taiwan issue in a manner 
acceptable to the people on both sides of the Taiwan Strait. If 
confirmed, I would work closely with Congress and our interagency 
partners to ensure the continued effective implementation of this 
longstanding policy.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. The pace and scale of Chinese modernization, coupled with 
the lack of transparency surrounding both capabilities and intentions, 
are a source of concern for the United States as well as for its allies 
and the region more broadly. An appropriate U.S. response would include 
efforts to fully comprehend the future direction of China's programs, 
active engagement to reduce the potential for miscalculations and to 
manage unwanted competition, and, finally, defense preparedness to 
ensure we retain our edge in areas that are critical to achieving 
specific operational objectives. If confirmed, I would seek to ensure 
that DOD places a high priority on this issue and would consult closely 
with committee members on appropriate U.S. responses.
    Question. In its 2008 Report to Congress, the U.S.-China Economic 
and Security Review Commission concluded that China is asserting 
various excessive claims of sovereignty relating to maritime, air, and 
space, and also concluded that these claims have negative implications 
for the United States. Further, the Commission concluded that more must 
be done to ensure that China's rapid expansion of nuclear power does 
not result in the decline in safety or an increase in proliferation of 
nuclear weapons technology or expertise.
    How should the United States respond to excessive claims of 
sovereignty by China?
    Answer. I appreciate that China's claims of sovereignty are 
controversial and detract from regional stability. The United States 
has a longstanding policy on Freedom of Navigation and does not 
acquiesce to excessive maritime claims that restrict navigation and 
over-flight rights under customary international law, as reflected in 
the U.N. Convention on the Law of the Sea. If confirmed, I would work 
closely with the Department of State, and as appropriate with other 
countries that have a stake in this issue, on developing a common 
understanding of and collaborative approaches to these issues.
    Question. What is the role of DOD in helping to ensure that China 
does not contribute to the proliferation of nuclear weapons or weapons 
technology in the region?
    Answer. DOD should continue to support interagency efforts to 
prevent the proliferation of WMD and delivery systems, along with 
related technologies and materials, including with respect to China.
    Question. Our current military-to-military relations with the 
Chinese have been described by defense officials as ``modest.''
    Do you believe that we should make any changes in the quality or 
quantity of our military relations with China? If so, what changes and 
why?
    Answer. More can be done to improve the U.S.-China military-to-
military relationship, both in terms of the quality and the quantity of 
exchanges between the Armed Forces of our countries. If confirmed, I 
would look closely at exchanges with the Chinese armed forces at all 
levels and across a range of issues, including the recently opened 
dialogue on nuclear policy and strategy, which I understand is a 
priority for Secretary Gates. If confirmed, I look to engage in a wide 
range of areas where we can encourage China to act responsibly both 
regionally and globally.
    Question. Is legislation needed to effect these changes?
    Answer. I do not know. If confirmed, I would carefully monitor 
developments in the U.S.-China military-to-military relationship and 
consult with Congress on these issues.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula and the diplomatic efforts to date to persuade 
North Korea to verifiably dismantle its nuclear weapons program?
    Answer. North Korea's conventional military, WMD and proliferation 
activities pose a significant threat to regional peace and security. 
Working with our allies and other key parties in the region on 
diplomatic solutions is an essential element in addressing the totality 
of the security problem on the Korean peninsula. Likewise, it is 
essential to maintain the capabilities to deter North Korea's military 
threat and proliferation activities. Our strong alliances with South 
Korea and Japan remain instrumental in this regard. These alliances 
help maintain the peace and stability that has allowed the wider East 
Asia region and U.S. interests there to prosper over the past several 
decades. If confirmed, I would work with my military and interagency 
colleagues to strengthen these alliance relationships and U.S. efforts 
to address the problems posed by North Korea. The United States must 
continue to provide strong leadership to ensure the full implementation 
of the recent agreement in North Korea. North Korea must dismantle its 
nuclear weapons program and confirm the full extent of its past 
plutonium production and uranium enrichment activities.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities? In your view, how 
should DOD forces be sized, trained, and equipped to deal with this 
threat?
    Answer. North Korea missile and WMD programs pose a serious threat 
to the United States, the rest of Asia, and the world. Strong 
alliances, regional partnerships and forward military presence remain 
key means to deal with these threats. U.S. national capabilities are 
also an essential element in deterring the threat and defending our 
interests. Additionally, in the event of a DPRK collapse, the U.S. 
would need the capabilities to work closely with the Republic of Korea 
(ROK) to rapidly and safely secure nuclear weapons and materials. If 
confirmed, I would work closely with the Chairman of the Joint Chiefs 
of Staff, senior military commanders and members of this committee to 
ensure that the U.S. military has the capabilities needed to deal with 
the range of threats North Korea poses and that our contingency 
planning is adaptive and responsive.
    Question. In your view, what should be done to maintain or 
strengthen deterrence on the Korean peninsula?
    Answer. Maintaining a strong alliance between the United States and 
the ROK remains central to effective deterrence on the Peninsula. Our 
alliance with Japan is likewise a critical factor in security and 
stability in the wider Asia-Pacific region, including on the Peninsula. 
If confirmed, I would work hard to continue strengthening these 
alliances.
    Question. With recent speculation regarding the possible poor 
health of North Korean leader Kim Jong-il, what do you believe the 
United States should be doing now to prepare for the possibility of a 
change in leadership in North Korea?
    Answer. The unexpected, with its attendant opportunities and 
challenges, can take different forms, including a sudden health crisis 
or change in leadership in North Korea. If confirmed, I look forward to 
consulting with this committee about the range of potential challenges 
we face and ensuring that we are capable of addressing these 
contingencies. I believe our focus should be ensuring we are ready to 
maintain stability in the region, defend the ROK, and prevent the 
proliferation of WMD or other dangerous technologies from the DPRK.
    Question. If confirmed, would you undertake a review of the status 
of the efforts to obtain from North Korea remains of U.S. service men 
missing from the Korean War and specifically address under what 
circumstances such efforts could resume?
    Answer. Yes.
                           republic of korea
    Question. Since the end of World War II, the alliance between the 
United States and the ROK has been a key pillar of security in the Asia 
Pacific region. This relationship has gone through periods of 
inevitable change.
    What is your understanding and assessment of the current U.S. 
security relationship with the ROK?
    Answer. Over a half-century old, the alliance remains strong and 
reflects the common values and aspirations of the Korean and American 
people. The alliance continues to ensure peace and stability on the 
Korean Peninsula and in Northeast Asia. As the regional security 
environment has evolved over time, the U.S. and the ROK have made great 
strides in transforming their collective deterrent and defense posture. 
In particular, the ROK has made major strides in developing its defense 
capabilities, commensurate with its economic development. Consequently, 
the Alliance remains relevant and capable both for deterring aggression 
on the peninsula and for addressing regional and global security 
issues. If confirmed, I would work to continue the positive development 
of this key U.S. security relationship and would hope to work with the 
committee to that end.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. If confirmed, I would work with Congress, the Joint Staff, 
and others to complete the realignment of U.S. forces on the Korean 
peninsula and return facilities our forces no longer require. I would 
also work to ensure that our command and control relationships with 
Korea and our contingency plans remain appropriate to the situations we 
face. Additionally, I believe it is important to ensure the U.S. and 
Korean publics continue to understand the enduring mutual benefits 
derived from this alliance.
    Question. What is your view regarding the planned timing of the 
transfer of wartime operational command to the ROK?
    Answer. As Secretary Gates said following his meeting with the 
Korean Minister of Defense last October, the ROK military forces and 
U.S. forces are on track to complete the alliance agreement to 
transition wartime operational control in 2012. This effort will enable 
the ROK military to take the lead role in the defense of Korea. If 
confirmed, I will work with the Secretary, this committee, and others 
to ensure that the important transition in command relationships is 
carried out in a manner that strengthens deterrence and maintains a 
fully capable U.S.-ROK combined defense posture on the Korean 
Peninsula.
                          u.s. africa command
    Question. On October 1, 2008, U.S. Africa Command (AFRICOM) was 
authorized Unified Command status. The creation of AFRICOM has raised 
questions about the role of DOD in U.S. development efforts.
    What do you see as the role of AFRICOM in U.S. African policy and 
in economic development and humanitarian engagement?
    Answer. The Department of State and USAID lead U.S. foreign policy 
and development engagements abroad, to include Africa. President-elect 
Obama has argued that AFRICOM should promote a more united and 
coordinated engagement plan for Africa. Ideally, AFRICOM's supporting 
role should be to promote national security objectives by working with 
African states, regional organizations, and the African Union to 
enhance stability and security in the region. In particular, AFRICOM 
should work to forge closer U.S. military-to-military relations with 
states on the African continent. If confirmed, my intent would be to 
work closely with State, USAID, other agencies and Congress to ensure 
that AFRICOM's roles and missions support U.S. foreign policy and 
national security objectives and are transparent.
    Question. AFRICOM's leadership has promoted the concept of ``active 
security,'' with an increased emphasis on theater security cooperation, 
as a guiding principle of the command.
    Are DOD's current security assistance authorities and funding 
levels adequate to fulfill AFRICOM's mission? If yes, please explain. 
If not, why not?
    Answer. I am not in a position to render a definitive judgment on 
this important question. I will, if confirmed, study the matter and, if 
changes are needed, provide views to Secretary Gates and the members of 
this committee.
    Question. The Combined Joint Task Force-Horn of Africa (CJTF-HOA) 
mission appears to have shifted from counterterrorism to civil and 
humanitarian affairs since its inception in 2002.
    What do you see as CJTF-HOA's primary mission?
    Answer. It is my understanding that the CJTF-HOA is designed to 
support the State Department's and DOD's security strategy in Africa to 
counterterrorism, in part through building partner capacity and 
promoting regional stability.
    Question. Do you believe it should continue as an enduring 
presence? If yes, what recommendations might you make regarding 
manpower, resources, and activities?
    Answer. If confirmed, I will work closely with the Joint Staff and 
AFRICOM to assess the question of CJTF-HOA's duration and to ensure 
that U.S. security interests in the region are supported by an 
appropriate, right-sized and properly resourced posture to promote 
long-term stability in the region.
                                 darfur
    Question. More than 4 years after then-Secretary of State Powell's 
declaration that genocide was taking place in Darfur, the death toll 
has climbed still higher, the camps for displaced persons have grown 
more crowded, and humanitarian access to help people in need has 
diminished in many areas. The United Nations has pledged to send 26,000 
peacekeepers to Darfur, but has sent less than half that number and has 
not provided them with the helicopters, vehicles, and other tools to 
fulfill their mission.
    What do you believe is the appropriate role of the United States 
and, in particular, DOD, in assisting with the deployment and mobility 
of this peacekeeping mission, given that its creation was largely a 
U.S. initiative and today is largely funded by a variety of U.S. 
assistance programs?
    Answer. I agree with the President-elect's statements about the 
need to bring pressure to bear on Sudanese authorities in Khartoum to 
halt the genocide in Darfur. The U.N. has two major peacekeeping 
missions in Sudan that seek to create a secure environment conducive to 
a political settlement of the cultural, ethnic, and religious 
differences that divide Sudan's periphery from the center. I understand 
that the Departments of State and Defense have supported the deployment 
of African contingents to the U.N. Darfur mission by providing 
personnel, training, equipment, logistical expertise, deployment 
assistance, and, when required, airlift. If confirmed, I will look 
closely at what additional support DOD could reasonably provide in this 
area if so directed by the President-elect.
                      united nations peacekeeping
    Question. DOD has provided logistics, communications, and 
headquarters staff to a variety of U.N. peacekeeping missions over the 
past several years.
    In your view, what support, if any, should DOD provide to U.N. 
peacekeeping missions?
    Answer. From Haiti to Liberia, Lebanon and other venues, the United 
States has important stakes in the success of U.N. peacekeeping 
operations. In addition to logistics, communications, and headquarters 
staff-related assistance, the issue of DOD help for U.N. field missions 
should be studied closely and in close consultation with other U.N. 
member states.
    Question. The United States sponsored along with its partners in 
the G-8 an initiative to train 75,000 peacekeepers by 2010. This 
program, known as the Global Peace Operations Initiative (GPOI), is run 
by the Department of State. DOD has provided varying degrees of support 
since the program's inception.
    In your view, what is the appropriate role of DOD in this program 
and, more generally, in the training of peacekeepers?
    Answer. DOD plays an important role in bringing its expertise to 
bear in the training and equipping of peacekeeping units. DOD 
collaboration with State is important to successfully identifying and 
vetting viable partners, analyzing indigenous capacities, developing 
sustainable train-the-trainer programs, and promoting self-sufficiency 
in this critical area so that more nations can more effectively 
contribute to the increasing demand for skilled peacekeepers around the 
world.
    Question. As the GPOI program approaches its scheduled end date 
(i.e. 2010), would you support or oppose an extension of the program 
and its mandate? Please explain.
    Answer. President-elect Obama has stated his support for continued 
funding for GPOI. In general, I believe the United States has a strong 
interest in effective training that expands the pool of available 
peacekeepers worldwide, including those with whom we may need to 
operate jointly. If confirmed, my intent would be to work closely with 
State Department colleagues as well as Members of Congress to ensure 
GPOI supports the President-elect's objectives in this area.
                                somalia
    Question. In your view, what should be the U.S. policy towards 
Somalia and what do you believe to be the appropriate role of DOD in 
support of that policy?
    Answer. Somalia's political turmoil and violence pose the continued 
specter of humanitarian suffering as well as offering a sanctuary to 
violent extremists and, more recently, a haven for pirates. Instability 
in Somalia is a threat to the region and potentially to the United 
States and our allies. If confirmed, I will work with the interagency 
to develop a coordinated U.S. national security policy toward Africa 
that addresses the U.S. strategic interests in the Horn of Africa, and 
to determine how DOD can and should best support this policy.
                          combating terrorism
    Question. What is your understanding and assessment of the 
Department's comprehensive strategy for combating terrorism, both at 
home and abroad?
    Answer. As I understand it, the Department's strategy for combating 
terrorism has three primary elements: protecting the homeland, 
disrupting and attacking terrorist networks, and countering ideological 
support for terrorism. The strategy includes indirect approaches aimed 
at building the capacity of partner governments and their security 
forces as well as direct approaches to defeat terrorist networks. 
Consistent with existing law, the Department's role within the United 
States is limited to providing support to civil authorities.
    I believe the United States needs a more comprehensive strategy for 
combating terrorism--an integrated whole-of-government effort that 
brings all elements of national power to bear effectively against this 
threat and fully engages allies and international organizations. If 
confirmed, I will work with the Chairman and the Joint Chiefs of Staff, 
the combatant commanders, and my interagency colleagues to undertake a 
review and assessment of our strategy to ensure it meets the goals of 
the President-elect and the Secretary of Defense.
    Question. How can the Department best structure itself to ensure 
that all forms of terrorism are effectively confronted?
    Answer. I am not in a position to recommend changes in structure 
for this specific problem-set at this time. If confirmed, I look 
forward to evaluating the Department's structure vis-a-vis a whole-of-
government strategy as discussed above and will do my utmost to ensure 
that we are organized properly to combat all forms of terrorism.
    Question. What changes, if any, would you recommend to the Defense 
Intelligence Community to ensure optimal support to combating terrorism 
and other homeland security efforts?
    Answer. Timely and accurate intelligence is a vital part of U.S. 
efforts against terrorism. If confirmed, I will continue the close 
relationship Policy has with the Under Secretary of Defense for 
Intelligence and the Intelligence Community to ensure intelligence and 
operations are mutually supportive.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
agencies?
    Answer. Yes. If confirmed, I look forward to collaborating with 
members of the National Security Council, National Counterterrorism 
Center, and others in a whole-of-government approach to combating 
terrorism.
    Question. The Department and Intelligence Community have determined 
that some terrorist organizations are beginning to rely more heavily on 
producing and trafficking narcotics to fund their operations.
    Do you believe DOD should have the lead for the U.S. Government's 
efforts to combat the nexus between narcotics and terrorism? If not, 
who should have the lead?
    Answer. The nexus between narcotics and terrorism is a serious 
challenge. This requires an integrated interagency approach, of which 
DOD is an integral part. DOD brings important tools and global 
capabilities to interagency efforts to counter networks that support 
both terrorist and international criminal organizations. If confirmed, 
I will review the DOD role in combating this nexus and coordinate with 
the other elements of the U.S. Government to determine the best way 
ahead.
                              war on drugs
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States.
    What is your assessment of the ongoing efforts of the United States 
to significantly reduce the amount of drugs illegally entering into our 
Nation?
    Answer. Drug trafficking--and the increasing link to terrorism in 
many places--is a formidable threat that challenges our Nation as well 
as our friends such as Mexico and Afghanistan. Drug traffickers can 
acquire the latest technology and corrupt governments around the world 
facilitate the trade. Although we have made significant progress in 
coordinating efforts across multiple agencies to counter this threat, 
there is more to be done. If confirmed, I will work with my interagency 
colleagues to assess the U.S. Government's efforts to date and craft a 
strategic way forward.
    Question. In your view, what is the appropriate role of DOD in U.S. 
counterdrug efforts?
    Answer. The Department's global focus, organization, capabilities, 
and its ability to act as an honest broker complement law enforcement 
goals and make it an effective actor in counterdrug efforts. DOD brings 
important tools and global capabilities to interagency efforts to 
counter both terrorist and international criminal networks.
    Question. The international community has detected a new narcotics 
trafficking route from Columbia to Europe via West Africa.
    In your view, what should be the role of the United States in 
countering the flow of narcotics to nations other than the United 
States?
    Answer. Clearly the transnational flow of narcotics is a global 
issue and cannot be addressed separately by individual nations around 
the world. The United States should work with allies and international 
organizations to counter the trans-national flow of narcotics through 
coordinated and strategic civil-military efforts.
                                colombia
    Question. Success in suppressing violence in Colombia has been 
credited to U.S. assistance to support Plan Colombia and to the growth 
of the Colombian economy, which spread wealth to a larger portion of 
the population. Over the past 2 years, there has been a debate about 
the most effective balance of U.S. assistance to continue to build on 
this success. Much of the U.S. assistance to Colombia over the past 5 
years would be characterized as hard-side security assistance (such as 
weapons, aircraft, and necessary training), but some argue hard-side 
assistance should now be decreased significantly and a more robust 
development plan should be implemented.
    In your view, what is the most appropriate strategy for U.S. 
engagement (including ``soft'' support) vis-a-vis Colombia?
    Answer. In principle, where a threat has been diminished, external 
support should be able to transition from a heavily military posture to 
a greater focus on promoting enduring stability through soft-power 
engagement. Congress has already begun a phased reduction of assistance 
reflecting their assessment that Colombian security forces are capable 
of pressing rebels and paramilitary groups to demobilize. If confirmed, 
I will work with my interagency colleagues--and the Colombians--to 
assess the progress of Plan Colombia and support a comprehensive 
civilian-military strategy for enduring stability.
                          space posture review
    Question. If confirmed, what role will you play in the Space 
Posture Review?
    Answer. The Space Posture Review is a joint review to be conducted 
by the Secretary of Defense and the Director of National Intelligence 
intended to clarify the national security space policy and strategy of 
the United States. In this regard, if I am confirmed, I will play a 
leading role in working with the Office of the Director of National 
Intelligence and others to conduct the review and respond to the 
congressional tasking.
                         nuclear posture review
    Question. If confirmed, what role will you play in the NPR?
    Answer. If confirmed as USD(P), I would oversee the NPR. I consider 
this basket of issues one of the most important long-term challenges we 
face--how to support the President-elect's ultimate goal of eliminating 
nuclear weapons worldwide while ensuring that America retains a robust 
nuclear deterrent that is sufficient to the threats we face. I would 
expect to engage other senior officials in DOD, as well as officials in 
the Departments of Energy and State, in this review and to consult 
fully with members of this committee.
                        nuclear weapons council
    Question. The USD(P) is a member of the Nuclear Weapons Council 
(NWC). What are the significant issues that the NWC should/will take up 
in the coming years?
    Answer. In my view, the most important immediate issue before the 
NWC is ensuring a credible U.S. nuclear deterrent that is safe, secure, 
and reliable. In the near term, this includes sustaining a viable 
nuclear stockpile and a weapons complex capable of supporting the 
stockpile, both of which are appropriately sized for the 21st century.
    Question. Do you believe that the NWC should have a role in 
addressing lapses in attention to nuclear matters, which have resulted 
in a number of serious problems, particularly in the Air Force?
    Answer. The NWC has oversight for a variety of matters, including 
nuclear safety, security, and control issues. I believe we must demand 
the highest standards of stewardship for nuclear weapons. If confirmed, 
I will give these important responsibilities the attention they deserve 
through my participation on the NWC as well as other related fora.
    Question. If confirmed, would you commit to active personal 
participation in NWC matters?
    Answer. Yes.
                  cooperative threat reduction program
    Question. Do you think the CTR program is well-coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., DOD, the State Department, and the Department of Energy?
    Answer. The President-elect has expressed his concern about the 
need to break bureaucratic logjams that have slowed the progress of CTR 
and other threat reduction programs, and if confirmed, I will give this 
matter the urgent attention it deserves.
    Question. The CTR program was recently expanded to geographic areas 
outside the former Soviet Union.
    What, in your view, are the key proliferation concerns that CTR 
should address outside the former Soviet Union? Please explain.
    Answer. The congressional initiative to expand the geographic reach 
of the Nunn-Lugar CTR program beyond the former Soviet Union strikes me 
as an important step toward reducing WMD threats and building global 
partnerships. I am aware that recent bipartisan reports, including the 
report from the Commission on the Prevention of Weapons of Mass 
Destruction, Proliferation and Terrorism, have stressed the importance 
of reducing nuclear threats wherever possible and highlight 
bioterrorism as a key proliferation concern demanding greater 
attention. If confirmed, I will work closely with Congress, other U.S. 
Government agencies, and global partners to strengthen our efforts to 
prevent WMD proliferation and terrorism.
    Question. CTR has completed or will soon complete the bulk of the 
scheduled work with Russia.
    What, in your view, is the next step in the U.S.-Russia CTR 
program?
    Answer. I anticipate that our CTR programs in Russia will remain a 
high priority for the new administration. The Nunn-Lugar CTR program 
represents an important and very successful relationship between our 
two countries which has endured even as difficulties have grown in 
other aspects of our relations. If confirmed, I will explore expanding 
this relationship and the capabilities built through CTR for mutually 
beneficial purposes to reduce the risks of WMD proliferation and 
terrorism outside of Russia.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. Like the President-elect and the current Secretary of 
Defense, I strongly support U.S. accession to the Law of the Sea 
Convention. The United States should be at the forefront of promoting 
the rule of law, including in the world's oceans; by becoming a party 
to the Convention we send a clear signal to all nations that we are 
committed to advancing the rule of law at sea. Additionally under the 
Convention, we provide the firmest possible legal foundation for the 
navigational rights and freedoms needed to project power, reassure 
friends and deter adversaries, respond to crises, sustain combat forces 
in the field, and secure sea and air lines of communication that 
underpin international trade and our own economic prosperity.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. Joining the Convention will give the United States a seat 
at the table when rights vital to our national interests are debated 
and interpreted, including the maritime mobility of our Armed Forces 
worldwide. The navigation and overflight rights and high seas freedoms 
codified in the Convention are essential for the global mobility of our 
Armed Forces and the sustainment of our combat forces overseas. America 
has more to gain from legal certainty and public order in the world's 
oceans than any other country. More than 150 nations are parties to the 
Convention. By becoming a party, the United States will be better 
positioned to work with foreign air forces, navies, and coast guards to 
cooperatively address the full spectrum of 21st century security 
challenges.
    Question. In your view, is customary international law alone 
sufficient to safeguard U.S. navigational and overflight rights and 
freedoms worldwide?
    Answer. I am not a legal expert, but from what I have learned from 
those who are, customary international law alone is not sufficient to 
safeguard U.S. navigational and overflight rights and freedoms. U.S. 
assertions of rights under customary international law carry less 
weight with other states than do binding treaty obligations. By its 
very nature, customary international law is less certain than treaties, 
as it is subject to the influence of changing state practice. If the 
United States remains outside the Convention, it will not be best 
positioned to interpret, apply, and protect the rights and freedoms 
contained in the Convention.
             bilateral defense trade cooperation agreements
    Question. Defense trade cooperation agreements between the United 
States and the United Kingdom and between the United States and 
Australia are currently pending before the Senate Foreign Relations 
Committee.
    What are your views on the U.S.-UK and U.S.-Australia defense trade 
cooperation agreements?
    Answer. I have not had the opportunity to review these agreements 
in detail. I understand that several Senators raised a number of 
concerns and questions about the Treaties during the last Congress. If 
confirmed, I look forward to working with the Senate on any issues 
related to ratification.
    Question. In your view, are these agreements in the national 
security interest of the United States?
    Answer. I have not had the opportunity to review these agreements 
in detail. If confirmed, I will review them and be available to consult 
with Congress.
    Question. What do you consider to be the main advantages and 
disadvantages of these defense trade cooperation arrangements?
    Answer. See above.
                              arms control
    Question. What role do you see for arms control as a means of 
improving U.S. national security?
    Answer. Arms control has been an important element of U.S. national 
security policy since the Cold War, and it remains important today. 
Engaging other nations in a process that builds confidence, increases 
transparency, reduces arsenals, and enhances cooperation has been, and 
remains, important to our interests. Arms control negotiations can also 
further progress towards the long-term goal of eliminating nuclear 
weapons.
    Question. What are your views on the next bilateral steps to 
address nuclear weapons issues between the United States and Russia?
    Answer. High level engagement will be critical in addressing the 
wide variety of issues between the United States and the Russian 
Federation, including nuclear weapons issues. One key issue that both 
nations will need to address early in the new administration is the 
impending expiration of the Strategic Arms Reduction Treaty (START).
    Question. What elements of START, if any, do you believe should be 
retained in any future agreement?
    Answer. The most important element to retain in any future 
agreement is the extension of essential monitoring and verification 
provisions contained in the current START.
    Question. In the absence of a START extension or successor treaty, 
what steps would you take to extend, expand, and to verify the Moscow 
Treaty?
    Answer. If confirmed, I would initiate a prompt and detailed review 
to determine the best path forward with respect to START, the Moscow 
Treaty, and any successor agreements.
    Question. What is your view of the role of the Nuclear 
Nonproliferation Treaty (NPT) in U.S. national security, and how should 
it be strengthened or improved?
    Answer. The NPT is an important tool for constraining further 
nuclear proliferation. We should work to strengthen the Treaty by 
encouraging states to adhere to the NPT and to agree to IAEA safeguards 
inspections. I support the President-elect's view that we need to work 
with our allies, partners, and other nations to achieve a successful 
outcome in the 2010 NPT review conference. One way to strengthen the 
NPT regime would be to ensure that any violation automatically triggers 
sanctions. Others should be examined as well. I would also like to see 
the United States abide by our promises to reduce our nuclear 
stockpiles over time and to further increase the safety and security of 
our arsenal.
    Question. Do you support a Comprehensive Test Ban Treaty (CTBT)?
    Answer. Yes, I support the President-elect's view that passing the 
CTBT is in America's national security interest.
                       ballistic missile defense
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes. If confirmed, I will seek to ensure that missile 
defense programs are prioritized in a manner that ensures that further 
development and deployment is pragmatic, cost-effective, and 
appropriate to the threats of tomorrow. I understand that the United 
States currently has operationally deployed a range of sea-based and 
ground-based ballistic missile defense systems to protect our forward-
based forces, allies, and other friendly nations against short- and 
medium-range missile threats and to defend the U.S. homeland against 
longer-range threats.
    Question. Do you agree that U.S. missile defense efforts should be 
prioritized on providing effective defenses against existing ballistic 
missile threats, especially the many hundreds of short- and medium-
range ballistic missiles that are currently within range of our 
forward-based forces, allies, and other friendly nations?
    Answer. I am aware of the threats posed by short- and medium-range 
ballistic missiles. If confirmed, I will review our BMD programs and 
consult with Congress to ensure we have an appropriate mix of short-, 
medium-, and long-range ballistic missile defense capabilities that are 
responsive to existing and emerging threats to our homeland, deployed 
forces, allies, and other friendly nations.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include operational test and 
evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to making decisions to 
deploy such systems?
    Answer. Yes. While missile defense testing is not a Policy 
responsibility, I agree that missile defense testing should be 
operationally realistic and should involve the Operational Test and 
Evaluation office as well as our warfighters.
    Question. If the United States and Russia could agree on a 
cooperative approach on missile defense issues, do you believe it would 
be in the security interest of the United States to pursue such an 
effort?
    Answer. Yes, although the final contours of such an approach would 
require close consultations between the administration and Congress. I 
believe that working with Russia in areas where we have common security 
concerns is in the interests of both of our countries. Efforts to 
cooperate with Russia on missile defense to address the risk of 
ballistic missile and WMD proliferation go back to the 1990s during the 
Clinton administration. I understand that in recent years, the United 
States has continued to explore missile defense cooperation with 
Russia. If confirmed, I will review the recent efforts, consult with 
colleagues and the State Department, and help recommend an appropriate 
course of action.
   chemical weapons elimination and the chemical weapons conventions
    Question. Do you agree that the United States should make every 
effort to meet its treaty obligations, including its obligations under 
the Chemical Weapons Convention (CWC)?
    Answer. Yes. As a signatory to the CWC, the United States is 
obligated to destroy its chemical weapons stockpile by April 29, 2012. 
The United States also has a congressional mandate to destroy its 
stockpile by April 29, 2012, but not later than December 31, 2017.
    Question. Do you agree that the Department should plan and budget 
for the most expeditious elimination of United States chemical weapons 
stockpile, consistent with safety and security requirements, in order 
to complete the destruction of the U.S. chemical weapons stockpile as 
close to the CWC deadline as possible?
    Answer. Yes, but there are competing priorities to balance. 
Although I have not yet examined this issue in detail, I understand 
that in 2006, the United States informed the Organization for the 
Prohibition of Chemical Weapons (OPCW) that it would not meet this 
deadline, but would accelerate the destruction effort as much as 
practical. To date, the Department is on track to destroy 90 percent of 
the U.S. stockpile by the CWC deadline.
    Question. If confirmed, will you focus your personal attention on 
this matter?
    Answer. If confirmed, I will look for alternative ways to 
accelerate the destruction of the remaining 10 percent of the 
stockpile.
                   space management and organization
    Question. What role, if any, do you believe the USD(P) should play 
in the establishment of a national security space policy?
    Answer. I understand that the recent congressionally-directed 
Review and Assessment of the Organization and Management of Space in 
DOD has recommended the development of a National Space Strategy. If 
this initiative is adopted and I am confirmed, I will consult with 
Secretary Gates on the proper role that the USD(P) should play in the 
development and coordination of any such policy or strategy.
          national guard and reserve role in homeland defense
    Question. There is current debate about the role the National Guard 
and Reserve should play in defending the homeland.
    What role do you believe the National Guard and Reserve should have 
in defending the homeland?
    Answer. Homeland defense is a total force responsibility. However, 
experience has shown the Nation needs to focus on better using the 
extensive competencies and capabilities of the National Guard and the 
Reserves in support of their priority missions. If confirmed, I will 
update my understanding of the roles, missions, and capabilities of the 
National Guard and the Reserves and will work to ensure that they have 
the equipment, training, and personnel to accomplish their missions, 
both at home and abroad, during this time of war.
    Question. What role do you believe the Active-Duty Forces should 
have in defending the homeland?
    Answer. As part of the Total Force, Active-Duty Forces also have 
important roles to play in supporting civilian authorities in homeland 
defense, particularly in large-scale crises when local and State 
responders may lack response capabilities adequate to the task. If 
confirmed, I will look into the roles and missions performed by each 
element of the Total Force to ensure that we take best advantage of 
their competencies to fulfill this critical obligation to protect the 
American people.
                            homeland defense
    Question. The Department of Homeland Security (DHS) is now 
responsible for homeland security, but DOD retains responsibility for 
homeland defense.
    Answer. What do you believe are the principal roles and missions of 
DOD for homeland defense, and how do they relate to the roles, 
missions, and responsibilities of DHS?
    Question. DOD and DHS have complementary and mutually supporting 
roles, missions, and responsibilities. DOD is responsible for defending 
the United States from attack upon its territory at home and securing 
its interests abroad. DOD executes military missions to deter, defend 
against, and defeat those who threaten the United States. DHS is 
responsible for leading the Nation's efforts to prepare for, protect 
against, respond to, recover from, and mitigate against the risk of 
natural disasters, acts of terrorism, and other manmade disasters; to 
secure the Nation's borders, ports, and airports; and to ensure that 
the Federal Government works with States, localities, and the private 
sector as a true partner in prevention, mitigation, and response. As 
necessary, and consistent with the law, DOD provides support to DHS in 
the execution of its missions.
  reorganization of the office of the under secretary of defense for 
                                 policy
    Question. If confirmed, what changes, if any, would you propose to 
the current organization of the Office of the USD(P)?
    Answer. If confirmed, I would anticipate the need to shift some 
portfolios to better align the organization with President-elect 
Obama's and Secretary Gates' policy objectives. For example, we may 
want to consider elevating and realigning strategic portfolios such as 
nuclear weapons, countering WMD, space, missile defense, and cyber. We 
may also want to consider how best to enhance the policy role in the 
PPBE process, for example by elevating the strategy, planning, and 
force development functions. Finally, there may be an opportunity to 
enhance policy coordination on the issue of Afghanistan and Pakistan, 
which currently spans multiple ASDs. If confirmed, I would consult with 
the committee in detail on these ideas.
    Question. Do you anticipate that any proposed changes would require 
changes to existing law?
    Answer. No. At this point, none of these potential portfolio 
adjustments should require changes to existing law.
                      private security contractors
    Question. Do you believe DOD and other Federal agencies should rely 
upon contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. I understand the concerns of Congress on this issue and 
believe that a comprehensive review of the role of military contractors 
on the battlefield is needed in order to set the terms for how they 
might be utilized in the future. I also agree with President-elect 
Obama's views on the need to improve oversight and transparency in how 
private security contractors are utilized and to establish clear 
standards regarding accountability, command and control, Rules of 
Engagement, and personnel policies. If confirmed, I will work with 
civilian and military officials of the Department and others who have 
primary responsibility for policy development and employment of private 
security contractors.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq?
    Answer. I do believe that several high-profile incidents in Iraq 
involving private security contractors have harmed U.S. policy 
objectives in Iraq. In December 2007, DOD and the Department of State 
agreed on consistent procedures for use of private security contractors 
in Iraq; moreover, both Departments have been transitioning to greater 
use of local nationals wherever practical. If confirmed, I expect to 
work on this issue and will keep Congress informed.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. The use of security contractors in any area of combat 
operations must be fully coordinated among all agencies that employ 
them. There must be unified procedures and strong oversight for all 
such contractors, regardless of which U.S. agency hires them. 
Commanders on the ground should have the authority to restrict or 
redirect their operations as appropriate. I believe there must be 
assured legal accountability for the actions of all security 
contractors, not just those employed by the Defense Department.
    Question. How do you believe the ongoing operations of private 
security contractors in Iraq are likely to be affected by the new SOFA 
between the United States and Iraq?
    Answer. It is my understanding that since January 1, U.S. 
Government private security contractors no longer have immunity from 
host nation law. Furthermore, they must comply with host nation 
registration and licensing requirements. For all contractors, the SOFA 
has meant substantially more liaison and coordination with Iraqi 
authorities at all levels.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. Yes.
            contractor performance of information operations
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media. The purposes of this contract 
include building up Iraqi public support for the Government of Iraq and 
the security forces of Iraq, and undermining Iranian influence in Iraq.
    What is your view of the appropriate roles of DOD and the 
Department of State in media campaigns to build up Iraqi public support 
for the government and security forces of Iraq and undermining Iranian 
influence in Iraq?
    Answer. I have not had an opportunity to become familiar with the 
details of these programs, but believe they deserve careful scrutiny. 
If confirmed, I would expect to look into these matters and discuss 
them with members of the committee.
    Question. What is your view on the effectiveness of information 
operations conducted by the United States through the Iraqi media?
    Answer. See previous answer.
    Question. Do you believe that it is appropriate for the United 
States to pay for media campaigns to build up support for the 
government and the security forces of Iraq at a time when the Iraqi 
Government has a surplus of tens of billions of dollars?
    Answer. See previous answer.
    Question. Do you see a risk that a DOD media campaign designed to 
build up support for the government and security forces of Iraq could 
result in the inappropriate dissemination of propaganda inside the 
United States through the internet and other media that cross 
international boundaries?
    Answer. See previous answer.
    Question. A spokesman for the Iraqi Government has been quoted as 
saying that any future DOD information operations in the Iraqi media 
should be a joint effort with the Iraqi Government. According to a 
November 7, 2008 article in the Washington Post, the spokesman stated: 
``We don't have a hand in all the propaganda that is being done now. It 
could be done much better when Iraqis have a word and Iraqis can 
advise.''
    Do you believe that DOD information operations through the Iraqi 
media should be conducted jointly with the Iraqis?
    Answer. See previous answer.
    Question. Under what circumstances do you believe that it is 
appropriate for the DOD to conduct information operations in a 
sovereign country without the participation and approval of the host 
country?
    Answer. See previous answer.
                       detainee treatment policy
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. I believe the prohibition on cruel, inhuman, or degrading 
treatment or punishment is clearly in America's best strategic interest 
and consistent with our values. During the long history of the Cold 
War, when America's way of life was challenged by a powerful competing 
ideology, we were ultimately successful, in part, because we held true 
to the best ideals and principles that sustained America as a shining 
beacon to millions under totalitarian rule. Power in the 21st century 
will stem as much from the strength and appeal of our ideas and moral 
principles as from our military might. If we are to defeat violent 
extremism, we must hold true to those ideas that make this country 
great, and continue to inspire the growth of freedom and tolerance 
around the world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. I have not received enough information to have an informed 
opinion on this question. If confirmed, I expect to work with the DOD 
General Counsel on this issue.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes, I will.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of Common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. Yes. If confirmed, I expect to work with the DOD General 
Counsel on this issue.
    Question. Do you believe that the United States has the legal 
authority to continue holding alleged members and supporters of al 
Qaeda and the Taliban as enemy combatants?
    Answer. Yes, I do as a general matter, but I am not in a position 
to comment on specific cases.
    Question. Do you believe that the Combatant Status Review Tribunals 
convened by the DOD to provide Guantanamo Bay, Cuba (GTMO) detainees an 
opportunity to contest designation as enemy combatants provide 
detainees with appropriate legal standards and processes?
    Answer. I have not been briefed on this specific issue. If 
confirmed, I expect to work with the DOD General Counsel on this issue.
    Question. Do you believe that the Federal courts have the 
procedures and capabilities needed to fairly and appropriately review 
the detention of enemy combatants, pursuant to habeas corpus petitions?
    Answer. It is my understanding that U.S. Supreme Court recognized 
that some adjustment to normal habeas proceedings may be necessary in 
these cases and that the exact procedures to apply in these cases are 
still being considered by the courts.
    Question. What role would you expect to play, if confirmed, in 
reviewing the status of GTMO detainees and determining whether the 
United States should continue to hold such detainees?
    Answer. If confirmed as USD(P), I would provide policy advice to 
the Secretary of Defense regarding the closure of GTMO and the 
disposition of the remaining detainee population.
    Question. Do you support closing the detention facility for enemy 
combatants at GTMO?
    Answer. Yes. As both President-elect Obama and Secretary Gates have 
stated, the detention facility at GTMO has become a liability for the 
United States.
    Question. In order to mitigate the risk associated with the release 
of GTMO detainees, do you believe DOD should establish some form of 
rehabilitation training for enemy combatants held at GTMO?
    Answer. I understand that the efforts in Iraq to rehabilitate and 
reconcile detainees have been fairly successful. If confirmed as 
USD(P), I expect to learn more about whether such a program could be 
tailored appropriately and successfully implemented for the population 
at GTMO.
    Question. What other ways could the United States use to encourage 
or entice our allies or other nations to accept detainees from GTMO? 
Would monetary support or sharing of technology for monitoring 
detainees be helpful inducements?
    Answer. If confirmed as USD(P), I would work closely with the 
Office of Detainee Affairs and the State Department to seek new ways to 
encourage our allies and friends to assist us in transferring those 
detainees from GTMO who can be safely returned to their home countries 
or resettled in a third country when that is not possible. In some 
cases, financial incentives may be appropriate, and increased capacity-
building may be mutually beneficial for this purpose and for broader 
collaborative efforts to combat terrorism.
    Question. The Military Commissions Act (MCA) of 2006 authorized the 
trial of ``alien unlawful enemy combatants'' by military commission and 
established the procedures for such trials.
    In your view, does the MCA provide appropriate legal standards and 
processes for the trial of alien unlawful enemy combatants?
    Answer. If confirmed, I expect to review any recommendation from 
the DOD General Counsel and the Department of Justice about whether the 
MCA strikes the right balance in protecting U.S. national security 
interests while providing appropriate legal standards and processes for 
a fair and adequate hearing.
    Question. Under what circumstances, if any, do you believe that it 
would be appropriate to use coerced testimony in the criminal trial of 
a detainee?
    Answer. If confirmed, I would expect to review this matter with the 
DOD General Counsel and the Department of Justice.
    Question. What role would you expect to play, if confirmed, in 
determining whether GTMO detainees should be tried for war crimes, and 
if so, in what forum?
    Answer. If confirmed, it is my understanding that I would play no 
role in determining which specific detainees should be tried for war 
crimes. However, should there be a review of our options for war crimes 
trials, I would expect to play a role in advising the Secretary of 
Defense on policy matters.
    Question. What role would you expect to play, if confirmed, in 
reviewing the MCA and developing administration recommendations for any 
changes that may be needed to that Act?
    Answer. If confirmed, I would expect to play a role in advising the 
Secretary of Defense on policy options.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. I visited Iraq in February and October of 2008 and was 
impressed by the ``COIN Inside the Wire'' approach taken by U.S. forces 
there. Particularly as we begin to transition detention operations and 
facilities to full Iraqi control, it is vital that we do our best to 
ensure that the quality of our facilities and our approach to detainee 
operations is maintained, as this line of operation is a critical 
component of successful counterinsurgency doctrine and practice. If 
confirmed as USD(P), I would be interested in seeing whether these 
counterinsurgency based programs can be tailored and applied more 
broadly to our detention operations elsewhere.
    Question. What should be done to incorporate those lessons learned 
into DOD doctrine, procedures, and training for personnel involved in 
detention and interrogation operations?
    Answer. I believe that a lot of these lessons are being captured 
today, and are reflected in new doctrine and directives, FM 3-24 
Counterinsurgency in particular. I firmly believe that these lessons 
should continue to be gleaned as we continue operations in Iraq and 
Afghanistan. To a degree perhaps unappreciated in the past, the way we 
treat detainees inside operational theaters is an important component 
of our overall strategy. If confirmed as the USD(P), I would work to 
ensure that these efforts continue in DOD schoolhouses, manuals, 
publications, and training, and that these lessons are applied as 
robustly as possible in all of our detention operations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(P)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                        social science research
    1. Senator Reed. Ms. Flournoy, the office you have been nominated 
for has been involved in a project called ``Minerva,'' which seeks to 
invest in social science and cultural research in support of military 
missions and capabilities. What is your assessment of the value of 
social science research (cultural anthropology, sociology, et cetera) 
to support defense missions?
    Ms. Flournoy. Social science research is increasingly valuable to 
support defense missions. To meet the varied and complex threats we 
face, we need to tap the breadth of cross-disciplinary expertise that 
is found within the social sciences.
    Secretary Gates has repeatedly spoken on the consequences of 
failing to understand the dangers posed by insurgencies and failing 
states. In his recent article in Foreign Affairs, for example, he wrote 
that: ``No one should ever neglect the psychological, cultural, 
political, and human dimensions of warfare.''

    2. Senator Reed. Ms. Flournoy, how will you work to strengthen the 
Department of Defense's (DOD) in-house capabilities to perform this 
kind of research at our network of DOD laboratories and schools?
    Ms. Flournoy. I have not had an opportunity to review in detail the 
DOD's in-house capabilities for social science research. As such, I 
would envision first examining what in-house capabilities exist today 
and then seek to ensure that DOD professional military education 
institutions and research laboratories have the appropriate curriculum 
and relevant programs to perform this kind of research.

         importance of information sharing to national security
    3. Senator Reed. Ms. Flournoy, the September 11 attacks illustrated 
a fundamental failure by our Government to share information 
effectively in order to detect and prevent the attack by ``connecting 
the dots.'' The 9/11 Commission identified 10 lost ``operational 
opportunities'' to derail the attacks. Each involved a failure to share 
information between agencies. In the aftermath of the September 11 
attacks, major efforts have been made to improve information sharing. 
Through legislation and executive orders these efforts were designed to 
effect a ``virtual reorganization of Government'' with communities of 
interest working on common problems across agency boundaries and 
between Federal, State, and local governments, and the private sector. 
While we have established the necessary legal structures, I am 
concerned that implementation is lacking. What is your view on the 
importance of information sharing to our national security and what 
steps will you take to improve the Government's ability to share 
information in a trusted environment?
    Ms. Flournoy. I believe sharing accurate, relevant, and timely 
information horizontally among Federal agencies, vertically among 
Federal, State, and local governments and the private sector, and with 
our international allies and friends is critical to combating terrorism 
and ensuring national security, and that current and emergent threats 
require a coordinated whole-of-government effort able to bring to bear 
all elements of national power. I will strive to ensure that DOD, 
consistent with the Intelligence Reform and Terrorism Prevention Act of 
2004 and the Implementing Recommendations of the 9/11 Commission Act of 
2007, is committed to the trusted sharing of information to enable all 
levels of government to do their part in assuring our Nation's 
security.

    4. Senator Reed. Ms. Flournoy, in the wake of September 11, 
Congress and President Bush put enhanced information sharing forward as 
a major goal by passing the Intelligence Reform and Terrorism 
Prevention Act of 2004 and the 9/11 Commission Recommendations 
Implementation Act of 2007. The information-sharing environment 
established by this legislation is designed to enable our Government to 
use information in new and more powerful ways. While improved 
information sharing enhances our national security, it also presents 
the risk that the Government will use these powerful new authorities to 
acquire vast amounts of data. This has the potential to infringe on 
privacy and civil liberties. As the 9/11 Commission said, this increase 
in governmental power ``calls for an enhanced system of checks and 
balances.'' What steps will you take to ensure that, as information 
sharing is enhanced, new and more powerful protections are developed to 
safeguard privacy and civil liberties and how will you help make sure 
that the American public trusts that the Government will respect their 
privacy?
    Ms. Flournoy. I believe that the protection of privacy and American 
civil liberties is a legal imperative and that we need not compromise 
our civil liberties in the pursuit of security. As Under Secretary of 
Defense for Policy, I will provide careful oversight and policy 
guidance on all matters under my purview to ensure that they are 
consistent with the U.S. Constitution and the law.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                           iraq stabilization
    5. Senator Akaka. Ms. Flournoy, the Strategic Framework and Status 
of Forces Agreement symbolized a major step toward Iraq assuming full 
responsibility for its security. Iraq has witnessed a nationwide 
reduction in civilian deaths. According to a DOD report to Congress 
released in December 2008, Measuring Stability and Security in Iraq, 
the civilian death rate is lower than any time since 2004. Although 
these developments are promising, security gains in Iraq remain 
fragile. What do you believe are critical activities the military must 
accomplish to ensure the stabilization efforts are not undermined after 
our military exit Iraq?
    Ms. Flournoy. As we plan for a responsible military drawdown in 
Iraq, I believe a critical portion of the U.S. military's stabilizing 
efforts must continue to be focused on ensuring that the Iraqi 
Government assumes control of the entire range of tasks necessary to 
organize, train, and equip its security forces. This includes, but is 
not limited to, helping our Iraqi partners develop a comprehensive 
defense strategy as well as a plan for the modernization and 
development of their forces.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                         nuclear posture review
    6. Senator Bill Nelson. Ms. Flournoy, the National Defense 
Authorization Act for Fiscal Year 2008 (P.L. 110-181) requires the 
Obama administration to conduct a Nuclear Posture Review (NPR). What 
role will you have in the NPR?
    Ms. Flournoy. As Under Secretary of Defense for Policy, I will 
oversee the NPR. I would expect to engage other senior officials in 
DOD, as well officials in the Departments of Energy and State, in this 
review and to consult fully with members of this committee.

    7. Senator Bill Nelson. Ms. Flournoy, how do you propose to 
reorganize the DOD Policy office to address nuclear and deterrence 
policy issues?
    Ms. Flournoy. I would anticipate the need to elevate the way in 
which these issues are addressed by the DOD Policy office. I intend to 
make recommendations to Secretary Gates on how best to ensure that the 
critical issue of nuclear and deterrence policy is handled, and will 
certainly speak with committee staff and members on this issue in the 
near future.

   policy oversight of missile defense agency and ballistic missile 
                                defense
    8. Senator Bill Nelson. Ms. Flournoy, since it was created in 2002, 
the Missile Defense Agency and its programs have not had much policy 
oversight from DOD. If you are confirmed to be the Under Secretary for 
Policy, will you ensure that the Missile Defense Agency and the 
ballistic missile defense programs of the Department are subject to 
thorough policy oversight?
    Ms. Flournoy. Yes. If I am confirmed, I will review the 
Department's missile defense policy oversight processes to ensure they 
are appropriate and effective.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                      troop levels in afghanistan
    9. Senator Bayh. Ms. Flournoy, as the U.S. military continues to 
draw down our forces in Iraq, how does the new administration propose 
to balance the needs of maintaining security in Iraq with its pledge to 
increase our troop levels in Afghanistan by as many 30,000 
servicemembers?
    Ms. Flournoy. As Secretary Gates recently testified, the Department 
is preparing a range of options for the President to achieve that 
balance, based on the assessments of the commanders on the ground, 
United States Central Command, and the Joint Chiefs of Staff. I look 
forward to engaging in the review of these options and in further 
discussions with the committee on this critical issue.

    10. Senator Bayh. Ms. Flournoy, how do these requirements square 
with the readiness levels and operational tempo we have demanded of our 
troops?
    Ms. Flournoy. The readiness levels and operational tempo of our 
troops require the Department's constant attention. Examining rotation 
timelines, as well as clearly defining our objectives and strategy in 
Afghanistan and Iraq, will be a priority for me. Working with our 
allies to increase their contributions to provide a safe and secure 
environment in Afghanistan and Iraq will be important. I also believe a 
strong interagency plan for Afghanistan can help adjust the demand on 
U.S. forces. Finally, Secretary Gates' intent to complete the planned 
growth of Army and Marine Corps end strength will also help alleviate 
some of the tension between readiness and OPTEMPO.

                   resources for iraq and afghanistan
    11. Senator Bayh. Ms. Flournoy, according to the recently signed 
Status of Forces Agreement with Iraq, American combat troops will begin 
leaving Iraq very soon. How do you plan to address the significant need 
for equipment recapitalization and reset while also weaning the 
Department off of supplemental budget requests?
    Ms. Flournoy. Equipment recapitalization and reset decisions are 
part of the overall balance of choices between succeeding in today's 
wars while preventing tomorrow's conflicts. The Department will need to 
make these decisions with careful attention to the economic 
environment. As the Secretary has stated, the fiscal year 2010 budget 
must make hard choices, including what equipment to recapitalize. As 
Under Secretary, I will play an active role in helping the Secretary 
make such choices.

    12. Senator Bayh. Ms. Flournoy, what risks does DOD face by 
continuing to rely so heavily on the supplemental process?
    Ms. Flournoy. The Department should reinvigorate its ability to 
balance risk within defense planning. The supplemental process often 
makes integration with our overall defense planning efforts more 
difficult. Although supplemental funding may be necessary to meet surge 
requirements, the Department should seek to reduce its reliance on 
supplementals over time. Failure to do so could increase the risk that 
DOD will not be properly balanced for a complex future.

    13. Senator Bayh. Ms. Flournoy, given your expertise in 
counterinsurgency strategy, how do you plan to advise Secretary Gates, 
his deputy, and President-elect Obama on properly resourcing forces 
deployed to Iraq and Afghanistan? Specifically, how do you intend to 
advise they balance the need for counterinsurgency capabilities of 
today with the conventional deterrence capabilities that may be needed 
for tomorrow?
    Ms. Flournoy. I believe that the United States must be prepared to 
respond to a full spectrum of challenges, and maintain balanced 
capabilities for irregular warfare, conventional warfare, asymmetric 
challenges, and strategic deterrence. My advice will be informed by 
discussions with commanders in the field, Combatant Commander and 
Service Chief priorities, and a comprehensive review of existing 
studies and assessments on these matters.

    14. Senator Bayh. Ms. Flournoy, if you were rebaselining the 
defense budget by taking into account lessons learned from Iraq, 
Afghanistan, and war on terror needs, what weapons systems and training 
competencies would be your highest procurement priorities?
    Ms. Flournoy. As I have not been formally briefed on the full range 
of these issues, it is difficult to speak to specific weapon systems or 
training programs. As Under Secretary, I will work with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, and 
with the Military Services to ensure that the lessons drawn from 
Afghanistan and Iraq are used to develop weapons systems and training 
programs that meet our needs in current conflicts as well as our long-
term requirements. In general, however, I agree with Secretary Gates 
that DOD clearly needs to pay particular attention to developing 
systems and training programs that ensure the U.S. military is postured 
for success in counterinsurgency operations, stability operations, and 
building the capacity of America's partners and allies.

    15. Senator Bayh. Ms. Flournoy, I, along with other members of the 
Senate Armed Services Committee, have worked to make sure that Iraq 
does not continue to sit on its burgeoning budget surplus while 
Americans are forced to go into further debt in order to help rebuild 
that country. How well do you believe Iraq is doing paying for its own 
reconstruction projects?
    Ms. Flournoy. I understand that the Government of Iraq is improving 
budget execution and has assumed the bulk of reconstruction costs. The 
Government of Iraq spent a total of $36 billion on reconstruction 
activities through the end of October 2008, $15 billion more than the 
same period of time in 2007. Despite budget revisions resulting from 
falling oil prices, the Government of Iraq remains committed to funding 
its own reconstruction activities. I will continue to make the transfer 
of financial responsibilities to Iraq a priority.

    16. Senator Bayh. Ms. Flournoy, do you believe it is necessary for 
the U.S. Government to request that Iraq assist in funding joint 
operations?
    Ms. Flournoy. I do believe Iraq should continue to pay for an 
increasing amount of the effort. However, rather than asking the Iraqis 
to contribute to the costs of joint operations, I believe there is a 
greater benefit in the Government of Iraq funding and developing its 
forces in order to assume greater responsibility for its own security 
and stability.

                      ballistic missile capability
    17. Senator Bayh. Ms. Flournoy, what is your assessment of the need 
for (and feasibility of) a missile defense system designed to counter 
Iran's growing ballistic missile capability?
    Ms. Flournoy. Iran continues to upgrade its existing ballistic 
missile systems and develop new ballistic missiles with increasing 
range, accuracy, and lethality. These developments give Iran the 
potential to threaten our deployed forces, our friends and allies in 
the region and in Eastern Europe, and perhaps at some point the U.S. 
homeland, as well as to limit our freedom of action in the region. To 
reassure our allies and friends, deter potential aggression, and, if 
necessary, defeat a ballistic missile attack, it is prudent to develop 
and deploy effective missile defense systems to counter Iran's growing 
ballistic missile capabilities.
    In doing so, however, we also need to ensure that such systems are 
developed in a way that is pragmatic, operationally effective, cost-
effective, and in collaboration with our allies. Missile defense 
systems are one tool in our national arsenal, along with diplomacy and 
continued multilateral cooperation with our partners and allies, to 
counter Iranian ballistic missile capability.

    18. Senator Bayh. Ms. Flournoy, do you plan to continue the 
development of ballistic missile defense?
    Ms. Flournoy. Although the Under Secretary of Defense for Policy is 
not responsible for making acquisition programs decisions, if 
confirmed, I will review our ballistic missile defense programs along 
with other Department officials to ensure we have an appropriate mix of 
ballistic missile defense capabilities that are responsive to existing 
and emerging threats to our homeland, deployed forces, allies, and 
other friendly nations. However, we must ensure that these capabilities 
follow a strong testing regime, are effective, and are affordable.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                      troop levels in afghanistan
    19. Senator McCain. Ms. Flournoy, General McKiernan has spoken of 
increasing U.S. troops in Afghanistan by something on the order of four 
combat brigades. Do you support this request?
    Ms. Flournoy. I support General McKiernan's request for additional 
U.S. troops in Afghanistan to improve security and serve as trainers. 
As Secretary Gates recently stated, we lack the troops necessary to 
provide a baseline level of security in some of Afghanistan's most 
volatile areas. The Taliban has increasingly filled this security 
vacuum. Additional military presence, along with further development of 
the Afghan security forces, will go a long way to help secure the 
Afghan people from insurgents and help stabilize the country.

    20. Senator McCain. Ms. Flournoy, would increasing the number of 
troops in Afghanistan require us to draw down in Iraq faster than we 
otherwise might?
    Ms. Flournoy. As Secretary Gates recently testified, military 
commanders are preparing a range of options for the President's review 
to balance drawing down combat forces in Iraq and increasing combat 
forces in Afghanistan.

    21. Senator McCain. Ms. Flournoy, how large do you believe the 
Afghan National Army (ANA) and the Afghan National Police (ANP) should 
ultimately be?
    Ms. Flournoy. In September 2008 the international community and 
Government of Afghanistan agreed to increase the size of the ANA to 
134,000. The ultimate goal is for the Afghans to assume primary 
security responsibility of their country, and we plan to accelerate the 
expansion of the ANA. As we move towards this goal, we will continually 
reevaluate the ANA end strength in light of the current security 
situation to ensure it is appropriate.
    For the ANP, the current end strength agreed to between the 
Government of Afghanistan and the international community is 82,000. 
The current focus is to improve the quality of the current ANP to allow 
them to better secure the people of Afghanistan. The ultimate end 
strength of the ANP will also be subject to review and reevaluation 
over time.

                      nato support in afghanistan
    22. Senator McCain. Ms. Flournoy, the Afghanistan mission is an 
important test of the North Atlantic Treaty Organization's (NATO) out-
of-area capability. Yet, NATO commanders continue to have difficulty 
persuading allies to contribute forces to International Security 
Assistance Force (ISAF) or to provide NATO forces the appropriate 
equipment for their tasks. Secretary Gates testified last year that he 
is worried about the alliance evolving into a two-tiered alliance, in 
which you have some allies willing to fight and die to protect people's 
security, and others who are not. How do you assess the contributions 
of NATO allies to the war in Afghanistan?
    Ms. Flournoy. Afghanistan would be less secure without the 
contributions and sacrifices of our NATO allies and other ISAF 
partners. Our allies and non-NATO partners contribute to the ISAF 
mission in significant ways, with both military and civilian 
contributions, and have increased their contributions each year. 
Despite this, increasing NATO contributions remains a key part of our 
approach to Afghanistan. We must continue to stress to our allies the 
U.S. commitment to Afghanistan and the shared responsibility NATO has 
to secure and stabilize Afghanistan.

    23. Senator McCain. Ms. Flournoy, what steps would you recommend to 
persuade NATO nations to increase their efforts in concert with our 
own?
    Ms. Flournoy. Again, the contributions of our NATO allies are 
imperative to success in Afghanistan. President Obama and Secretary 
Gates have both called for greater contributions from our NATO allies. 
By committing more of our own resources to the challenge, the United 
States will be better positioned to persuade our allies to do more. The 
new administration's review of Afghanistan/Pakistan strategy should 
recommend concrete steps to increase allied contributions.

                    narco-trafficking in afghanistan
    24. Senator McCain. Ms. Flournoy, we have heard estimates that over 
50 percent of Afghanistan's gross national product is associated with 
the illegal opium trade. Coalition strategies for countering the opium 
trade have not been effective to date. In your view, what strategy 
would be most effective in reducing opium production and trafficking in 
Afghanistan?
    Ms. Flournoy. While I have not been briefed in detail on our 
counternarcotics efforts in Afghanistan, it is my impression that our 
counterdrug strategy needs to be better integrated into the broader 
effort. Opium traffic in Afghanistan distorts the economy, corrodes the 
judicial system, and increases funding for insurgents and incentives 
for corruption and criminal violence. An effective approach to 
counternarcotics is a key component of a realistic Afghanistan 
strategy. I intend to focus on ensuring that this and other elements 
are properly addressed.

    25. Senator McCain. Ms. Flournoy, what should the role of the U.S. 
military forces be in the counterdrug program in Afghanistan?
    Ms. Flournoy. Any counternarcotics policy in Afghanistan should 
maintain an Afghan lead on counternarcotics operations with U.S. 
military forces supporting Afghan security forces. The U.S. military 
should continue to build Afghanistan's counternarcotics capacity in 
coordination with the U.S. Drug Enforcement Administration and the 
Departments of State and Justice in order to help Afghans to become 
self sufficient and reliable partners in the fight against illegal 
drugs.

    26. Senator McCain. Ms. Flournoy, do you believe that DOD should 
provide support for counternarcotics operations carried out by other 
agencies, such as the Drug Enforcement Agency?
    Ms. Flournoy. Breaking the narcotics-insurgency nexus is critical 
to overall success in Afghanistan. U.S. military forces should provide 
support to other agencies in counternarcotics operations. DOD 
international counterdrug policy and Rules of Engagement were recently 
revised to enable U.S. commanders to support other agencies in 
Afghanistan properly.

    27. Senator McCain. Ms. Flournoy, what is the appropriate role for 
coalition nations and the larger international community in effectively 
addressing the counterdrug challenge in Afghanistan and the surrounding 
region?
    Ms. Flournoy. I support the increased participation of NATO in 
addressing the counterdrug challenge in Afghanistan. DOD should 
continue to support NATO's role in the coordination and synchronization 
of deliberate counternarcotics interdiction operations. I understand 
that NATO defense ministers provided new guidance to the ISAF commander 
that allows for additional flexibility when conducting counternarcotics 
related military operations.

                          afghan national army
    28. Senator McCain. Ms. Flournoy, the goal for increasing the size 
of the ANA has been revised from 68,000 to approximately 134,000 
soldiers. Do you believe that a force structure of 134,000 is 
sufficient to address Afghanistan's growing insurgency?
    Ms. Flournoy. In September 2008 the international community and 
Government of Afghanistan agreed to increase the size of the ANA to 
134,000, with the intent of having an ANA that will be sufficient to 
meet Afghanistan's security needs. The ultimate goal is for the Afghans 
to assume primary security responsibility of their country, and 
accelerating the expansion of the ANA supports this goal.

    29. Senator McCain. Ms. Flournoy, would you support a surge of 
trainers from the United States and coalition partners into Afghanistan 
to accelerate the expansion of the ANA?
    Ms. Flournoy. The expanded ANA will require additional trainers and 
mentors to meet the needs of a 134,000-strong force. I support a 
substantial increase in mentors and trainers as they are critical to 
the ANA's development and accelerated expansion.

                   cross-border attacks from pakistan
    30. Senator McCain. Ms. Flournoy, one of the main threats to U.S. 
and coalition forces in Afghanistan comes from cross-border attacks by 
the Taliban and extremist militants who find safe haven in Pakistan's 
border regions. What steps in your view need to be taken to eliminate 
the threat posed by Taliban and extremist militants hiding out across 
the Afghan-Pakistan border?
    Ms. Flournoy. Controlling the movement of extremists across the 
Afghanistan-Pakistan border requires a unified effort by governments on 
both sides of the border and the support of U.S. and NATO forces in 
Afghanistan. As Under Secretary of Defense for Policy, I will work to 
improve intelligence-sharing and cross-border coordination and 
encourage continued action by Pakistani forces to eliminate the 
militant threat within Pakistan.

                        u.s.-pakistan relations
    31. Senator McCain. Ms. Flournoy, the stability of Pakistan has 
ramifications for broad U.S. regional interests as well as being an 
important underpinning to our success in our war against global 
extremists. Which DOD policies regarding Pakistan would you recommend 
we sustain; which need to be strengthened; and which would you 
recommend for elimination?
    Ms. Flournoy. I have not been fully briefed on the entire range of 
DOD policies in Pakistan, and am not prepared to make specific policy 
recommendations at this time. I do, however, look forward to 
participating in an interagency review of Afghanistan/Pakistan strategy 
that should address this important question.

    32. Senator McCain. Ms. Flournoy, what is your assessment of the 
efforts by the Pakistani Government to counter militant groups along 
the border with Afghanistan and to combat terrorism in general?
    Ms. Flournoy. Although I have not been briefed formally on these 
issues, I believe that the democratic Government of Pakistan should be 
strongly supported and held accountable for enhancing stability within 
its own borders, eliminating safe havens for extremists, and preventing 
cross-border attacks. I will support increased measures to enhance 
Pakistan's capability to secure its territory and combat terrorism.

    chief of the national guard bureau and the joint chiefs of staff
    33. Senator McCain. Ms. Flournoy, do you think the Chief of the 
National Guard Bureau should be a member of the Joint Chiefs of Staff? 
Why or why not?
    Ms. Flournoy. The National Guard has become an integral part of the 
military operational force in recent years. As such, ensuring the 
National Guard is well integrated into the Defense Department's plans 
and policies is imperative. I agree with President Obama and Secretary 
Gates that ensuring that the concerns of our citizen soldiers are heard 
at the highest levels is particularly important. The Chief of the 
National Guard Bureau has only been a four-star position since December 
2008. I imagine that the issue of making him a member of the Joint 
Chiefs of Staff will be debated in the months to come, and I hope to 
participate fully in that debate, make recommendations to the 
Secretary, and consult with members of this committee.

                             ``soft power''
    34. Senator McCain. Ms. Flournoy, Secretary Gates has called on 
Congress to provide more funding for the State Department's Foreign 
Service and the U.S. Agency for International Development. Just a few 
days ago, Admiral Mullen expressed the same views commenting that our 
national security and foreign policy requires ``a whole-of-government 
approach to solving modern problems'' and ``we need to reallocate roles 
and resources in a way that places our military as an equal among many 
in government--as an enabler, a true partner.'' Admiral Mullen went on 
to say that ``as an equal partner in government, I want to be able to 
transfer resources to my other partners when they need them.'' What 
thoughts do you have on these remarks calling for more resources for 
civilian agencies responsible for ``soft power,'' including the 
Departments of State, Justice, Commerce, and Agriculture?
    Ms. Flournoy. I stand with the President, Secretary Gates, and 
Admiral Mullen in stressing the need for the United States to invest 
more heavily in its non-military instruments of national power. The 
need for a more integrated approach to achieving our national security 
objectives using all elements of national power can only be realized if 
we invest in building the capacity of our civilian agencies. As Under 
Secretary, I intend to support my interagency counterparts in their 
efforts to significantly expand the Government's ``soft-power'' 
resources and the capacity of civilian agencies to contribute to U.S. 
humanitarian, counterinsurgency, and post-conflict efforts.

    35. Senator McCain. Ms. Flournoy, should Congress provide greater 
flexibility for the military to transfer funding during a crisis?
    Ms. Flournoy. Yes. I believe that greater flexibility during, and 
before, crises allows DOD and the interagency to better support U.S. 
objectives.

                                al qaeda
    36. Senator McCain. Ms. Flournoy, General Hayden, the Director of 
the Central Intelligence Agency, has said that ``al Qaeda operating out 
of Pakistan is the greatest danger to the United States'' and that ``if 
there is a major strike in this country, it will bear al Qaeda's 
fingerprints.'' What do you believe is the greatest danger to the 
United States?
    Ms. Flournoy. Combating terrorism is one of the most pressing 
security challenges facing the United States. I agree with General 
Hayden that the al Qaeda network--whose leadership is concentrated 
within the border areas between Pakistan and Afghanistan but whose 
propaganda and violent extremist ideology inspire action by associated 
movements and potentially ``homegrown'' cells across the globe--remains 
an immediate threat to the United States and many of its allies. I am 
particularly concerned about terrorists gaining access to weapons of 
mass destruction (WMD).
    Both President Obama and Secretary Gates have cited the need to 
eliminate the terrorist sanctuary in the border regions of Pakistan, 
but there is no purely military solution. The Governments of Pakistan 
and Afghanistan will be central to defeating the terrorist and cross-
border insurgent groups that threaten the border region and the 
international community. To support their efforts, the United States 
must have an integrated strategy to promote security, development, and 
governance, and to prevent terrorism across the Afghanistan-Pakistan 
border. We must also bolster our efforts to keep WMD out of the hands 
of terrorists. I intend to work closely with my DOD and interagency 
colleagues to examine how best to strengthen U.S. efforts in these 
critical areas.

    37. Senator McCain. Ms. Flournoy, how would you describe the 
current intent, composition, and capabilities of al Qaeda?
    Ms. Flournoy. I understand that al Qaeda remains committed to 
attacking the United States and its interests both at home and abroad. 
Its capabilities, while seriously degraded since September 11, 2001, 
remain significant. Surviving al Qaeda leadership have adopted an 
increasingly decentralized command and control structure that relies on 
the exploitation of modern communications systems to inspire like-
minded regional affiliates and independent cells. Regional affiliates, 
such as al Qaeda in Iraq and al Qaeda in the Islamic Maghreb, as well 
as other al Qaeda efforts in the Horn of Africa and the Arabian 
Peninsula, broaden al Qaeda's capability to strike U.S. interests.

    38. Senator McCain. Ms. Flournoy, do you believe DOD is adequately 
organized to meet this threat?
    Ms. Flournoy. DOD has taken many steps to improve its organization 
and capabilities to counter the terrorist threat. For example, Special 
Operations Command was designated the supported commander for planning 
and synchronizing combatant command operations against terrorist 
networks. Since the last Quadrennial Defense Review (QDR), the 
Department has made a significant investment in Special Operations 
Force capabilities and personnel growth. The general purpose forces are 
also taking on increased missions to train and advise the security 
forces of our partners and allies to counter terrorist and insurgent 
threats.
    Many terrorist threats come from countries with which the United 
States is not at war, and manifest themselves in ways that cannot be 
overcome solely by military means. The responses they demand extend 
well beyond the traditional domain of any single government agency or 
department. Therefore, DOD works extensively with other departments and 
agencies, as well as the National Counterterrorism Center, in the 
development of U.S. Government counterterrorism plans and in the 
coordination of all elements of national power. These whole-of-
government efforts range from activities to disrupt terrorist 
organizations to promoting international partners' capacity to foster 
stability, the rule of law, and good governance.
    As Under Secretary, I plan to work with the Chairman and the Joint 
Chiefs of Staff, the combatant commanders, and my colleagues across the 
interagency to review, assess, and refine the Department's organization 
to ensure that it meets the President's comprehensive strategy for 
combating terrorism.

    39. Senator McCain. Ms. Flournoy, do you believe our European 
allies are adequately concerned and focused on the threat posed by al 
Qaeda?
    Ms. Flournoy. The United States and our European allies have a 
shared interest in countering transnational terrorism. The major 
terrorist attacks in both London and Madrid are just two examples that 
highlight the danger of this threat in Europe. Afghanistan would be a 
less secure environment without the contributions and sacrifices of our 
NATO allies and other international ISAF partners. However, as 
President Obama and Secretary Gates have both noted, efforts in 
Afghanistan would benefit from greater contributions from our European 
allies. In particular, European allies have unique capabilities--such 
as law enforcement competencies--that they can bring to bear in 
Afghanistan and elsewhere to build the capabilities and capacity of 
international partners.
    As Under Secretary I will seek to improve U.S. partnerships with 
European allies to increase our common ground on emerging threats and 
opportunities.

                       quadrennial defense review
    40. Senator McCain. Ms. Flournoy, in your 2006 article titled ``Did 
the Pentagon Get the Quadrennial Defense Review Right?'', which 
appeared in the Washington Quarterly, you wrote that the 2006 QDR ``did 
not include a regular consultation process with the chairmen and 
ranking members of the key defense committees in the Senate and the 
House of Representatives.'' Do you continue to believe that political 
engagement on the QDR is important and, if confirmed, would you 
advocate for the consultation that you described? Why?
    Ms. Flournoy. I continue to believe regular engagement with all 
stakeholders in the Nation's defense enterprise is an important part of 
QDRs. The Department should regularly consult with Congress, 
interagency partners, defense industry, and key international partners 
with whom the United States works to understand and meet the challenges 
of today's security environment.
    The Department's engagement with Congress throughout the QDR 
process is especially important to ensure a smooth transition between 
QDR decisionmaking and any related legislation, to include 
appropriations. I expect hard choices will have to be made in this QDR 
and the support of Congress will be necessary to be successful.

    41. Senator McCain. Ms. Flournoy, in that same article you wrote 
that ``DOD needs a new and more rigorous approach to defense planning, 
one that provides the analytical basis for setting strategic 
priorities, allocating risk, and managing portfolio of capabilities.'' 
Can you expand on your statement with respect to how the Department can 
recapitalize or improve efforts on the QDR?
    Ms. Flournoy. To be effective, the next QDR must articulate a 
comprehensive, long-term vision of U.S. military capabilities and 
identify where trade-offs, shifts in investment, or divestment should 
be made. I have long believed that DOD needs to enhance its ability to 
identify and manage risk across the spectrum of current operations and 
likely future requirements. I understand that the Department has made 
progress on refining its analytic and capability portfolio management 
tools and processes. I am particularly pleased that the 2008 National 
Defense Strategy stated that implementing the strategy ``requires 
balancing risks, and understanding the choices those risks imply. We 
cannot do everything, or function equally well across the spectrum of 
conflict. Ultimately, we must make choices.'' I intend to work hard to 
further strengthen the Department's defense planning in the QDR and 
beyond.

                relocation of u.s. marines from okinawa
    42. Senator McCain. Ms. Flournoy, the U.S. Government has an 
agreement with Japan regarding the realignment of U.S. Marines 
currently stationed in Okinawa. Current planning includes the 
relocation of about 8,000 marines and their families to the Territory 
of Guam. This committee may see in the fiscal year 2010 budget a 
substantial request for investment in new facilities to support 
movement of the marines to Guam. How do you view the agreement from a 
theater-wide strategic perspective?
    Ms. Flournoy. The agreement is rooted in a shared regional 
strategic perspective between the United States and Japan. As the 
westernmost U.S. territory for basing in the Pacific, Guam provides the 
strategic flexibility and freedom of action necessary to support 
peacetime engagement and crisis response. The agreement with Japan 
builds on other posture changes that will support forward-basing of 
submarines and transient aircraft carriers, projection of intelligence, 
surveillance, and reconnaissance and strike assets, and increased 
logistical sustainment capabilities. The relocation to Guam is a key 
element in transforming the U.S.-Japan alliance in ways that will 
strengthen the political support in Japan for our reduced and 
consolidated presence on Okinawa. Overall, these efforts will 
strengthen the deterrent effect of U.S. forces and assure our regional 
allies of an enduring U.S. forward presence.
                                 ______
                                 
               Question Submitted by Senator Mel Martinez
                               preemption
    43. Senator Martinez. Ms. Flournoy, both the 2008 National Defense 
Strategy and the 2006 National Security Strategy reference the act of 
preemption. Where do you see the line drawn between preemption and 
aggression? How will you ensure the legislature is correctly informed 
of military action with enough time for substantive thought and debate?
    Ms. Flournoy. The United States has the responsibility to protect 
and defend our citizens and allies. Although we do not seek conflict 
with other nations, neither should we ignore imminent threats to the 
United States. It is critical to consult with Congress and our allies 
in situations where the United States faces imminent threats. Precisely 
how the legislature is informed and in which situations the United 
States would use force are important questions that will need to be 
addressed in close consultation with Congress and our partners and 
allies. I intend to work closely with counterparts in Congress and 
other partners to ensure that U.S. national security objectives and 
decisionmaking processes are as transparent as possible.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                              afghanistan
    44. Senator Collins. Ms. Flournoy, in your answers to the advance 
policy questions, you identified the need for the United States to 
develop and employ a more effective strategy in Afghanistan and the 
surrounding region. Can you provide more detail on your vision for a 
new direction for Afghanistan?
    Ms. Flournoy. President Obama has made it clear that the 
Afghanistan theater should be our top military priority. Secretary 
Gates has stated that more troops are needed ``to provide a baseline 
level of security in some of the more dangerous areas.'' To that end, 
the United States is planning to increase its military presence in 
Afghanistan, in conjunction with a large increase in the Afghan 
security forces. We should also improve coordination between Afghan and 
coalition forces in the field and enable the Afghans to assume the lead 
for more operations.
    At the same time, as in any counterinsurgency effort, success 
requires a commensurate increase in U.S. support to governance, rule of 
law, and economic programs. I will work with my counterparts at State, 
United States Agency for International Development, and other U.S. 
Government agencies to develop a comprehensive, holistic approach in 
Afghanistan and the broader region, particularly Pakistan. We should 
also support the United Nations in its mission to coordinate among the 
more than 40 nations and hundreds of nongovernmental organizations to 
help develop a comprehensive approach to reconstruction efforts in 
Afghanistan. Unity of effort and the effective application of both 
national and international resources will go a long way toward 
establishing the kind of sustainable security that is needed to ensure 
a successful outcome that is commensurate with U.S. interests.
                                 ______
                                 
    [The nomination reference of Michele A. Flournoy follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michele A. Flournoy of Maryland, to be Under Secretary of Defense 
for Policy, vice Eric S. Edelman, resigned.
                                 ______
                                 
    [The biographical sketch of Michele A. Flournoy, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Michele A. Flournoy
    Michele Flournoy was appointed President of the Center for a New 
American Security (CNAS) in January 2007. Prior to co-founding CNAS, 
she was a Senior Adviser at the Center for Strategic and International 
Studies, where she worked on a broad range of defense policy and 
international security issues. Previously, she was a distinguished 
research professor at the Institute for National Strategic Studies at 
the National Defense University (NDU), where she founded and led the 
university's Quadrennial Defense Review (QDR) working group, which was 
chartered by the Chairman of the Joint Chiefs of Staff to develop 
intellectual capital in preparation for the Department of Defense's 
2001 QDR. Prior to joining NDU, she was dual-hatted as Principal Deputy 
Assistant Secretary of Defense for Strategy and Threat Reduction and 
Deputy Assistant Secretary of Defense for Strategy. In that capacity, 
she oversaw three policy offices in the Office of the Secretary of 
Defense: Strategy; Requirements, Plans, and Counterproliferation; and 
Russia, Ukraine, and Eurasian Affairs. Ms. Flournoy was awarded the 
Secretary of Defense Medal for Outstanding Public Service in 1996, the 
Department of Defense Medal for Distinguished Public Service in 1998, 
and the Chairman of the Joint Chiefs of Staffs Joint Distinguished 
Civilian Service Award in 2000. She is a member of the Aspen Strategy 
Group, the Council on Foreign Relations, the International Institute of 
Strategic Studies, the Executive Board of Women in International 
Security, and the Board of the Institute for Defense Analysis. She is a 
former member of the Defense Policy Board and the Defense Science Board 
Task Force on Transformation. In addition to several edited volumes and 
reports, she has authored dozens of articles on international security 
issues. Ms. Flournoy holds a B.A. in social studies from Harvard 
University and an M.Litt. in international relations from Balliol 
College, Oxford University, where she was a Newton-Tatum scholar.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michele 
Flournoy in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michele Angelique Flournoy.

    2. Position to which nominated:
    Under Secretary of Defense (Policy).

    3. Date of nomination:
    Intention to nominate issued January 8, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 14, 1960; Los Angeles, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to William Scott Gould.

    7. Names and ages of children:
    William Alexander (Alec), 11.
    Victoria Morgan, 9.
    Aidan Campbell, 6.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Balliol College, Oxford University, M.Litt. International 
Relations, 1986 (09/1983-06/1986).
    Harvard University, B.A. Social Studies, 1983 (09/1979-06/1983).
    Beverly Hills High School, High School Diploma, 1979 (09/1975-06/
1979).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Center for a New American Security, President and Co-Founder, 01/
2007-Present.
    Center for Strategic and International Studies, Senior Adviser-
International Security Program, 12/2000-12/2006.
    Institute for National Strategic Studies-National Defense 
University, Distinguished Research Professor, 09/1998-12/2000.
    Office of the Secretary of Defense-Department of Defense, Principal 
Deputy Assistant Secretary for Strategy and Threat Reduction and Deputy 
Assistant Secretary for Strategy, 05/1993-09/1998.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Office of the Secretary of Defense-Department of Defense, Principal 
Deputy Assistant Secretary for Strategy and Threat Reduction and Deputy 
Assistant Secretary for Strategy, 05/1993-09/1998.
    Defense Policy Board, 1998-2001.
    U.S. STRATCOM Strategic Advisory Group, 2004-2007.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Center for a New American Security, President and Co-Founder.
    W. Scott Gould and Michele Angelique Flournoy Revocable Trust Co-
Trustee.
    Institute for Defense Analyses, Member-Board of Directors.
    Women in International Security, Member-Executive Board.
    Ava partners, Managing Director (clients below):

      MPRI, Speaker
      BAE Systems, Inc., Consultant
      Booz Allen Hamilton, Consultant
      Hicks & Associates, Consultant

    Lockheed Martin, Consultant.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Institute for Defense Analses, Trustee, 2007-present.
    Women in International Security, member of the Executive Board, 
1999-present.
    Council on Foreign Relations, member, 1998-present.
    International Institute for Strategic Studies, former member.
    Aspen Strategy Group, member, 2002-present.
    Christ Church, Georgetown, parishioner and member of the Vestry, 
2006-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Provided policy advice to Kerry, Clinton, and Obama campaigns.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    06/16/08, Obama for America, $1,000
    09/29/07, Reed Committee, $1,000
    06/30/07, Hillary Clinton for President, $500
    06/22/06, Reed Committee, $1,000
    08/18/04, Democratic National Committee, $200
    07/09/04, Kerry Victory 2004, $500

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Joint Distinguished Civilian Service Award by the Chairman of the 
Joint Chiefs of Staff, 2000.
    Department of Defense Medal for Distinguished Public Service, 1998.
    Secretary of Defense Medal for Outstanding Public Service, 1996.
    Newton-Tatum Scholar to Balliol College Oxford, 1983-1985.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Michele Flournoy.
    This 13th day of January, 2009.

    [The nomination of Michele Flournoy was reported to the 
Senate by Chairman Levin on February 5, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 9, 2009.]
                              ----------                              

    [Prepared questions submitted to Jeh Charles Johnson by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience in DOD?
    Answer. At this time I have no proposals to amend any provision of 
the Goldwater-Nichols Act. If I am confirmed and if I identify possible 
changes that I think would be beneficial, I will propose those changes 
through the established process.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my prior answer.
                             relationships
    Question. What is your understanding of both the formal and 
informal relationship between the General Counsel of DOD and the 
following offices?
    The Secretary of Defense.
    Answer. The General Counsel is the Secretary's principal advisor on 
the wide variety of legal issues facing by DOD. I hope and expect to 
consult with the Secretary and his personal staff on these issues on a 
regular basis.
    Question. The Under Secretaries of Defense.
    Answer. The General Counsel should work closely with the Under 
Secretaries, both personally and through the General Counsel's staff, 
to provide them and their respective offices with timely and quality 
legal advice.
    Question. The Assistant Secretaries of Defense.
    Answer. Likewise, the General Counsel should work closely with the 
Assistant Secretaries, both personally and through the General 
Counsel's staff, to provide them and their respective offices with 
timely and quality legal advice.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. I am aware that the Chairman of the Joint Chiefs has his 
own dedicated Legal Counsel, and that a provision in the National 
Defense Authorization Act (NDAA) for Fiscal Year 2008 codified the 
existence of this position through a new section 156 in title 10, 
U.S.C., and that this provision in law also provided that the Legal 
Counsel be a one-star officer. See ``NDAA for Fiscal Year 2008,'' Pub. 
L. No. 110-181, Sec. 543, 122 Stat. 3, 115 (2008). While the Chairman 
relies primarily upon his Legal Counsel for legal advice, the Legal 
Counsel and the DOD General Counsel should work together on the broad 
range of matters that affect DOD.
    Question. The Judge Advocates General.
    Answer. As General Counsel of the Air Force from October 1998 to 
January 2001, I believe I worked in a collegial and collaborative 
fashion with The Judge Advocate General of the Air Force and his staff 
to deliver effective legal service and advice to Air Force leaders. If 
confirmed as General Counsel of DOD, I hope and expect to resume that 
positive working relationship with all Judge Advocates General and the 
Staff Judge Advocate to the Commandant of the Marine Corps.
    I am aware that The Judge Advocates General are responsible for the 
administration of military justice within their respective Services, 
and that senior leaders within the DOD should be mindful of the 
principles and restraints of unlawful command influence. Finally, I am 
aware that in 2004, title 10 was amended to direct that ``no officer or 
employee of DOD interfere with the ability of the Judge Advocate[s] 
General to give independent legal advice to'' the leadership of their 
respective military departments. See 10 U.S.C. Sec. Sec. 3037, 5148, 
8037 (2003), as amended by the Ronald Reagan NDAA for Fiscal Year 2005, 
Pub. L. No. 108-375, Sec. 574, 118 Stat. 1811, 1921 (2004).
    Question. The Legal Advisor to the Chairman of the Joint Chiefs of 
Staff.
    Answer. See my answer above concerning the Chairman of the Joint 
Chiefs. In addition, I am aware that in 2008, title 10 was amended to 
direct that ``no officer or employee of DOD may interfere with the 
ability of the Legal Counsel to give independent legal advice to the 
Chairman of the Joint Chiefs of Staff and to the Joint Chiefs of 
Staff.'' See Duncan Hunter NDAA for Fiscal Year 2009, Pub. L. No. 110-
417, Sec. 591, 122 Stat. 4356, 4474 (2008). I understand that current 
practice is for the DOD General Counsel and the Chairman's Legal 
Counsel to meet frequently to discuss issues of mutual concern and to 
exchange information. If confirmed, I hope and expect to continue that 
practice.
    Question. The Staff Judge Advocates to the Commanders of Combatant 
Commands.
    Answer. It is my understanding that the DOD General Counsel's 
relationship to the staff judge advocates of the combatant commands is, 
for the most part, through the Chairman's Legal Counsel.
    Question. The General Counsels of the Military Departments.
    Answer. As a former General Counsel of the Department of the Air 
Force, I am familiar with this relationship. The General Counsels of 
the Army, Navy, and Air Force serve as the chief legal officers of 
their respective departments, and each report to the Secretary of their 
respective departments. There is no direct reporting relationship to 
the DOD General Counsel, but the DOD General Counsel is the chief legal 
officer of DOD. The DOD General Counsel should meet regularly and work 
closely with the Army, Navy, and Air Force General Counsels. If 
confirmed, I will ensure that we work together closely.
    Question. The Counsels for the Defense Agencies.
    Answer. As I understand it, the DOD General Counsel is the Director 
of the Defense Legal Services Agency (DLSA), and the General Counsels 
of the defense agencies and DOD field activities are part of DLSA, and 
thus, report to the DOD General Counsel in his or her capacity as DLSA 
Director.
    Question. The Counsel to the Inspector General (IG).
    Answer. I am aware that a provision in the NDAA for Fiscal Year 
2009 amended the IG Act of 1978 to establish a ``General Counsel to the 
IG of DOD.'' See Duncan Hunter NDAA for Fiscal Year 2009, Pub. L. No. 
110-417, Sec. 907, 122 Stat. 4356, 4569 (2008). This new law, in 
substance, changed the relationship between the DOD General Counsel and 
the DOD IG's legal advisor, who reports directly to the DOD IG and 
performs duties assigned by the DOD IG. If confirmed, I hope and expect 
to work closely with the IG's General Counsel to provide timely and 
quality legal advice to our respective clients.
    Question. The Joint Service Committee on Military Justice.
    Answer. The DOD General Counsel designates a non-voting 
representative to the Joint Service Committee on Military Justice.
    Question. The Comptroller General.
    Answer. As I understand it, an agency head may request an opinion 
from the Comptroller General on the obligation and disbursement of 
public funds, and the DOD General Counsel may submit such questions to 
the Comptroller General on behalf of the Secretary of Defense. I 
understand that, on an informal basis, DOD General Counsel's office 
enjoys a very good relationship with the Comptroller General's office, 
which includes informal consultation. If confirmed, I intend to 
continue that relationship.
    Question. The United States Court of Appeals for the Armed Forces.
    Answer. The law states that the Court of Appeals for the Armed 
Forces ``is located for administrative purposes only in the DOD,'' 
which emphasizes the Court's judicial independence from DOD. See 10 
U.S.C. Sec. 941. I understand that, traditionally, the DOD General 
Counsel serves as an informal DOD liaison with the Court, and may be 
asked by the President to recommend candidates for appointment to the 
Court.
    Question. The Code Committee established under Article 146 of the 
Uniform Code of Military Justice (UCMJ).
    Answer. As I understand it, the Code Committee consists of the 
Judges of the United States Court of Appeals for the Armed Forces, The 
Judge Advocates General of the Military Departments, the Judge Advocate 
General and Chief Counsel of the Coast Guard, the Staff Judge Advocate 
to the Commandant of the Marine Corps, and two recognized authorities 
on military justice appointed by the Secretary of Defense from public 
life. The DOD General Counsel has no formal relationship to the Code 
Committee. However, I am told that the General Counsel may provide 
informal support as the Code Committee desires, and informs the Code 
Committee with respect to the activities and recommendations of the 
Joint Service Committee on Military Justice.
    Question. The Attorney General.
    Answer. The Attorney General is the chief legal officer and law 
enforcement authority of the United States. The DOD General Counsel 
must work closely with the Attorney General and his staff to fulfill 
their respective duties.
    Question. The Office of Legal Counsel (OLC) at the Department of 
Justice.
    Answer. The OLC issues formal legal opinions that can and do affect 
the operations and policies of the various agencies of the executive 
branch. The DOD General Counsel must, therefore, work closely with the 
OLC to ensure the best possible legal advice is provided to officials 
of DOD.
    Question. The Office of Legal Adviser at the Department of State.
    Answer. The Departments of State and Defense must work together on 
many matters in furtherance of the national security of the United 
States. Therefore, it is necessary for the DOD General Counsel and the 
Legal Advisor at the Department of State, and their staffs, to consult 
with each other on legal issues of mutual interest.
                             qualifications
    Question. Section 140 of title 10, U.S.C., provides that the 
General Counsel is the chief legal officer of DOD and that the General 
Counsel shall perform such functions as the Secretary of Defense may 
prescribe.
    What background and expertise do you possess that you believe 
qualifies you to perform these duties?
    Answer. I am a lawyer in good standing at the Bar of the State of 
New York and the District of Columbia. I am admitted to practice in a 
variety of Federal courts around the country, including the U.S. 
Supreme Court. I am a trial lawyer and litigator at Paul, Weiss, 
Rifkind, Wharton & Garrison, LLP in New York City. I am a Fellow in the 
American College of Trial Lawyers.
    I have served in public office twice. From January 1989 to December 
1991, I was an Assistant United States Attorney in the Southern 
District of New York, where I prosecuted public corruption cases. From 
October 1998 to January 2001, I served as General Counsel of the 
Department of the Air Force, following nomination by the President and 
confirmation by the Senate. In that position, I worked in a 
professional and collaborative fashion with the more than 1,000 Judge 
Advocates General and civilian lawyers in the Air Force to accomplish 
many things for our common client. This also included working closely 
with the DOD General Counsel and attorneys within that office. In 2007, 
I was nominated by the New York State Commission on Judicial Nomination 
to be Chief Judge of the State of New York. The incumbent, Judith Kaye, 
was reappointed by the Governor.
    While in private law practice, I am active in civic and 
professional affairs. I was a member of the Ethics Committee and chair 
of the Judiciary Committee of the New York City Bar Association. I am 
also a member of the Council on Foreign Relations.
    Question. Assuming you are confirmed, what duties do you expect 
that the Secretary of Defense will prescribe for you?
    Answer. If I am confirmed, I hope and expect that Secretary Gates 
and his senior staff will call upon me for legal advice and guidance on 
the wide variety of matters that cross his desk.
                             legal opinions
    Question. If you are confirmed, would the legal opinions of your 
office be binding on all lawyers within DOD?
    Answer. The DOD General Counsel is the chief legal officer of DOD. 
Consequently, the legal opinions of the Office of the DOD General 
Counsel are the controlling legal opinions of DOD, with the exception 
of lawyers in the Office of the DOD IG General Counsel, who are 
explicitly exempted from the scope of 10 U.S.C. Sec. 140, by virtue of 
section 907 of the NDAA for Fiscal Year 2009. As stated before, I am 
also mindful of the recent changes in law that prohibit any officer or 
employee of DOD from interfering with the ability of the Judge 
Advocates General to give independent legal advice to the leadership of 
their respective military departments.
    Question. How will you ensure that such legal opinions are 
available to lawyers in the various components of DOD?
    Answer. Opinions of the Office of the DOD General Counsel are 
disseminated throughout DOD in the ordinary course of business, both 
electronically and in hardcopy format using normal departmental 
distribution processes. If confirmed, I expect to continue this 
practice.
    Question. If confirmed, are there specific categories of General 
Counsel legal opinions that you expect to reconsider and possibly 
revise? If so, what categories?
    Answer. If confirmed, one of my objectives is to assess whether the 
DOD General Counsel's legal opinions currently in effect need to be 
reconsidered or revised.
    Question. What role do you expect to play, if confirmed, in the 
development and consideration (or reconsideration) of legal opinions by 
the OLC of the Department of Justice that directly affect DOD?
    Answer. If confirmed, I expect to work with the OLC in the 
development, consideration, and reconsideration of OLC legal opinions, 
while recognizing that the ultimate responsibility for the development 
of those opinions resides with the Department of Justice.
    Question. What actions would you take in response to an opinion 
issued by OLC with which you disagreed as a matter of proper 
interpretation of the law?
    Answer. If OLC issued an opinion with which I materially disagreed, 
I would not hesitate to inform OLC of the extent and nature of my 
disagreement, mindful, again, that the Attorney General is the chief 
legal officer of the United States and that his or her legal opinions 
are controlling throughout the executive branch.
                        independent legal advice
    Question. In response to attempts within DOD to subordinate legal 
functions and authorities of the Judge Advocates General to the General 
Counsels of DOD and the military Services, Congress enacted legislation 
prohibiting any officer or employee of DOD from interfering with the 
ability of the Judge Advocates General of the Military Services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs. Congress also required a study and review by outside 
experts of the relationships between the legal elements of each of the 
military departments of each of the military departments.
    What is your view of the need for the Judge Advocates General of 
the Services, the Staff Judge Advocate to the Commandant of the Marine 
Corps, and the legal advisor to the Chairman of the Joint Chiefs of 
Staff to provide independent legal advice to Service Secretaries, 
Chairman of the Joint Chiefs, Chiefs of Staff of the Army and Air 
Force, and the Chief of Naval Operations?
    Answer. This is my view: I respect and admire the role our Nation's 
military lawyers play for DOD. I appreciate that military lawyers, 
given their training and experience, may have a perspective that 
civilian lawyers do not have, particularly in matters of military 
operations, military personnel, and military justice. Further, as 
General Counsel of the Air Force from 1998 to 2001, I believe I worked 
in a collegial and collaborative fashion with the Judge Advocate 
General of the Air Force and his staff, and greatly respected his role 
and the advice he had to offer to the leadership of the Air Force.
    I believe that the Judge Advocates General of the military 
departments, the Staff Judge Advocate to the Commandant of the Marine 
Corps, and the Legal Counsel to the Chairman of the Joint Chiefs of 
Staff should provide their best independent legal advice to the 
Secretaries of the military departments, the Chairman of the Joint 
Chiefs of Staff, and the Service Chiefs, as appropriate. That advice 
should be informed by the views of the Department of Justice, the DOD 
General Counsel, and the Military Department General Counsel concerned.
    Question. What is your view of the responsibility of judge 
advocates within the Services and joint commands to provide independent 
legal advice to military commanders?
    Answer. It is the responsibility of judge advocates within the 
Services and joint commands to provide legal advice to military 
commanders that is independent of improper external influence. Also, as 
a practical matter, judge advocates must be depended upon to provide 
timely and effective day-to-day legal advice to military commanders in 
the field, without seeking the approval and input of the DOD General 
Counsel for that advice. However, the DOD General Counsel is the senior 
legal officer of the Department. Therefore, judge advocates' advice 
should be informed by the views of the Department of Justice, the DOD 
General Counsel, the General Counsel of the military department 
concerned, and the Judge Advocate General concerned.
    Question. If confirmed, would you propose any changes to the 
current relationships between the uniformed judge advocates and General 
Counsels?
    Answer. I am not aware at this time of any changes that I would 
propose to the current relationships between the uniformed Judge 
Advocates and General Counsels.
                            detainee issues
    Question. Section 1403 of the NDAA for Fiscal Year 2006, provides 
that no individual in the custody or under the physical control of the 
United States Government, regardless of nationality or physical 
location shall be subject to cruel, inhuman, or degrading treatment or 
punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. In my view, this prohibition is in the best interest of the 
United States, the national security interests of the United States, 
and is consistent with fundamental American values.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. I am not fully informed to provide an adequate response to 
this question. If I am confirmed, this is something I expect to review 
carefully.
    Question. What role do you believe the General Counsel of DOD 
should play in the interpretation of this standard?
    Answer. I believe the General Counsel should play a primary role in 
advising on the standards governing the treatment of persons detained 
by the U.S. military, including in any interpretation, if necessary, of 
the standard quoted above.
    Question. What role do you believe the Judge Advocates General of 
the military Services should play in the interpretation of this 
standard?
    Answer. The Judge Advocates General of the military departments 
should play a prominent role in the interpretation of this standard and 
other matters related to the treatment of detainees. I believe The 
Judge Advocates General and the military lawyers they lead bring an 
important and essential perspective to these and many other matters, 
and they play a vital role in supporting the operating forces 
worldwide. As I stated before, judge advocates must be depended upon to 
provide timely and effective day-to-day legal advice to military 
commanders in the field. If confirmed, and if called upon to offer any 
guidance on this standard, I hope and expect to consult the Judge 
Advocates General and the Chairman's Legal Counsel for this guidance.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of Common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. Yes. If I am confirmed, I expect to review this issue 
closely.
    Question. Do you believe that the United States has the legal 
authority to continue holding alleged members and supporters of al 
Qaeda and the Taliban as enemy combatants?
    Answer. Yes. As a general matter, the United States is authorized 
to detain those individuals determined to be enemy combatants. See, 
e.g., Hamdi v. Rumsfeld, 542 U.S. 507 (2004) and the Authorization for 
Use of Military Force, 115 Stat. 224. I cannot comment, legally or 
factually, on the circumstances of the detention of specific 
individuals, which, in many cases, is the subject of pending 
litigation.
    Question. Do you believe that the Combatant Status Review Tribunals 
convened by DOD to provide Guantanamo detainees an opportunity to 
contest designation as enemy combatants provide detainees with 
appropriate legal standards and processes?
    Answer. If I am confirmed, I expect to examine this issue 
carefully.
    Question. Do you believe that the Federal courts have the 
procedures and capabilities needed to fairly and appropriately review 
the detention of enemy combatants, pursuant to habeas corpus petitions?
    Answer. I am familiar with the Supreme Court's decision in 
Boumediene v. Bush, 128 S.Ct. 2229 (2008). It is also my understanding 
that the exact procedures that will apply in the habeas cases that 
follow the Boumediene decision are still being considered by the 
District Court for the District of Columbia. I do not now have a 
personal belief about this issue. If confirmed, I will work closely 
with the Department of Justice to propose enhancements to current 
procedures and capabilities that may be necessary.
    Question. What role would you expect to play, if confirmed, in 
reviewing the status of Guantanamo detainees and determining whether 
the United States should continue to hold such detainees?
    Answer. If confirmed, I expect to provide legal advice to the 
Secretary of Defense on the status of the Guantanamo detainees and 
determinations whether the United States should continue to hold such 
detainees.
    Question. The Military Commissions Act of 2006, authorized the 
trial of ``alien unlawful enemy combatants'' by military commission and 
established the procedures for such trials.
    In your view, does the Military Commissions Act provide appropriate 
legal standards and processes for the trial of alien unlawful enemy 
combatants?
    Answer. If confirmed, I intend to carefully review whether the 
Military Commissions Act strikes the right balance between protecting 
U.S. national security interests and providing appropriate legal 
standards and processes for a fair and adequate hearing.
    Question. Under what circumstances, if any, do you believe that it 
would be appropriate to use coerced testimony in the criminal trial of 
a detainee?
    Answer. If confirmed, I anticipate looking carefully at whether use 
of coerced testimony is ever appropriate in the criminal trial of a 
detainee.
    Question. What role would you expect to play, if confirmed, in 
determining whether Guantanamo detainees should be tried for war 
crimes, and if so, in what forum?
    Answer. Under the current structure, the General Counsel has no 
role in determining whether any particular Guantanamo detainee should 
be tried for war crimes. Rather, the Convening Authority makes the 
decision on which cases are referred to a military commission. If 
confirmed, I anticipate reviewing the current process to determine 
whether to recommend any changes to it.
    Question. What role would you expect to play, if confirmed, in 
reviewing the Military Commissions Act and developing administration 
recommendations for any changes that may be needed to that Act?
    Answer. If confirmed, I anticipate reviewing the Military 
Commissions Act to determine whether to recommend any legislative 
proposals to change it.
    Question. What is your understanding of the relationship between 
the General Counsel of DOD and the legal advisor to the convening 
authority, the chief prosecutor, and the chief defense counsel for the 
military commissions?
    Answer. It is my understanding that, for reporting purposes, these 
individuals are all under the cognizance of the Office of the General 
Counsel. The legal advisor to the convening authority reports to the 
Deputy General Counsel (Legal Counsel). Consistent with the Regulation 
for Trial by Military Commissions, the chief prosecutor reports to the 
legal advisor. The chief defense counsel reports to the Deputy General 
Counsel (Personnel and Health Policy).
                     contractors on the battlefield
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. The extensive involvement of contractor employees in a 
broad array of activities--including security functions--has raised 
questions about the legal accountability of contractor employees for 
their actions.
    Do you believe that current DOD regulations appropriately define 
and limit the scope of security functions that may be performed by 
contractors in an area of combat operations?
    Answer. I know that both President-elect Obama and Secretary Gates 
are concerned about the oversight and accountability of private 
contractors in areas of combat operations. I am not now familiar with 
the specific provisions of the Department's regulations in this area, 
but I recognize that this is an important issue. If confirmed, I will 
make review of the regulations one of my priorities.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. If confirmed, I will review these regulations and, if 
appropriate, make recommendations for changes.
    Question. Do you believe that current DOD regulations appropriately 
define and limit the scope of contractor participation in the 
interrogation of detainees?
    Answer. As stated above, I am not now familiar with the specific 
provisions of the Department's regulations in this area, but I 
recognize that this is an important issue. If confirmed, I will make 
review of these regulations one of my priorities.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. If confirmed, I will review these regulations that would 
pertain to this matter and, if appropriate, make recommendations for 
changes.
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media.
    In your view, is DOD's use of private contractors to conduct 
information operations through the Iraqi media appropriate?
    Answer. I am not fully familiar with the Department's use of 
private contractors to conduct information operations. If confirmed, I 
will review this issue. I recognize that this issue requires close 
scrutiny.
    Question. Under what circumstances do you believe that it is 
appropriate for DOD to conduct information operations in a sovereign 
country without the knowledge and support of the host country?
    Answer. I do not have enough information about information 
operations at this point to comment on when it would be appropriate for 
DOD to conduct such operations in a sovereign country without the 
knowledge and support of that country. If confirmed, I will study these 
matters carefully and ensure that DOD directives and policy on 
information operations are compliant with U.S. law. Again, I recognize 
that this is an issue that requires close scrutiny. I note also that in 
dealing with the media, DOD Public Affairs has an obligation to 
disseminate truthful and accurate information about military 
activities, consistent with security guidelines, to both domestic and 
international audiences.
    Question. Office of Management and Budget (OMB) Circular A-76 
defines ``inherently governmental functions'' to include 
``discretionary functions'' that could ``significantly affect the life, 
liberty, or property of private persons''.
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. From my prior experience as General Counsel of the Air 
Force, I am generally familiar with OMB Circular A-76. I am also 
familiar with section 832 of the NDAA for Fiscal Year 2009 which 
provides the sense of Congress, regarding performance by private 
security contractors of certain functions in areas of combat 
operations. This is a sensitive and controversial area, which, if 
confirmed, I will study carefully.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. I am not now in a position to provide an informed view on 
this subject. I am generally familiar with OMB Budget Circular A-76 and 
am familiar with section 1057 of NDAA for Fiscal Year 2009, which 
reflects the sense of Congress regarding the interrogation of detainees 
by contractor personnel. Again, if confirmed, I will study this issue 
carefully.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, I intend to study this issue carefully and 
provide the appropriate legal advice and guidance.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I am generally aware of the provisions of the MEJA of 2000, 
Pub. L. No. 106-523, 114 Stat. 2488 (2000), as amended. See 18 U.S.C. 
Sec. Sec. 3261-67. I am also aware that there have been legislative 
initiatives, including a bill introduced by then-Senator Barack Obama 
in February 2007, to explicitly cover MEJA's jurisdiction over 
contractors for Federal agencies other than DOD. I expect this 
legislative proposal will become a position of the new administration. 
I understand and appreciate the importance of appropriate 
accountability over all persons in support of our Armed Forces wherever 
located. If confirmed, I will give high priority to achieve that 
objective.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. I am not now in a position to offer specific legislative 
changes to MEJA. If confirmed, I will give high priority to the 
Department's role in supporting this important law and provide advice 
when and where improvements are needed.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, to the extent that DOD develops 
recommendations for changes to MEJA to improve upon this law and its 
implementing procedures, I hope and expect to provide that necessary 
support. It is my understanding that the Office of the DOD General 
Counsel has been, since the enactment of MEJA, an integral player in 
implementing the act itself, and the processing of cases to the 
Department of Justice for consideration.
    Question. Section 552 of the NDAA for Fiscal Year 2007 extended 
criminal jurisdiction of the military courts under the UCMJ to persons 
serving with or accompanying an Armed Force in the field during time of 
declared war or a contingency operation, such as our current operations 
in Iraq and Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I strongly support the position that civilians serving with 
or accompanying our Armed Forces overseas who commit crimes should be 
appropriately held accountable. I do not now have an informed view 
about whether the UCMJ currently provides the appropriate 
jurisdictional reach.
    Question. What is your view of the procedures agreed upon by the 
DOD and the Department of Justice to reconcile jurisdictional 
responsibilities under MEJA and the UCMJ?
    Answer. I am aware generally that there are procedures to reconcile 
these responsibilities reflected in a Secretary of Defense memorandum 
of March 10, 2008. If confirmed, I intend to examine whether this 
memorandum strikes the appropriate balance in the exercise of criminal 
jurisdiction.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. I am not now prepared to offer specific suggestions or 
recommendations. If confirmed, I will examine this issue.
                        military justice matters
    Question. Article 6 of the UCMJ gives primary jurisdiction over 
military justice to the Judge Advocates General.
    What is your understanding of the General Counsel's functions with 
regard to military justice and the Judge Advocates General?
    Answer. In general, the DOD General Counsel has no direct role to 
play in specific military justice cases, or cases that may have 
military justice implications. Decisions in military justice cases are 
made by the commander of the accused, the convening authority, the 
military judge, and court members. The Service Courts of Criminal 
Appeals and the U.S. Court of Appeals for the Armed Forces provide 
appellate review of cases arising under the UCMJ, as does the U.S. 
Supreme Court through writs of certiorari. The Secretary of Defense 
becomes involved only in military justice in limited circumstances, and 
the General Counsel provides legal advice to the Secretary in those 
circumstances. The General Counsel, like the Secretary of Defense and 
other senior civilian and military officials in the Department, must 
avoid any action that may constitute unlawful command influence. I 
share the courts' oft-stated view that unlawful command influence is 
the ``mortal enemy'' of military justice.
    See also my answers above concerning the Joint Service Committee on 
Military Justice and the Code Committee.
    Question. In your view, how should the General Counsel approach 
military justice matters--both in terms of specific cases and general 
policy issues to provide useful advice without generating problems of 
unlawful command influence?
    Answer. See my answers above to the preceding question concerning 
the role of the General Counsel.
             prevention of and response to sexual assaults
    Question. As required by section 577 of the Ronald W. Reagan NDAA 
for Fiscal Year 2005, DOD issued a new policy for the prevention of and 
response to sexual assaults involving members of the Armed Forces.
    What is your assessment of the DOD policy as it pertains to the 
legal issues surrounding the investigation and prosecution of sexual 
assault cases?
    Answer. I believe this is a very important issue and I intend to 
review it carefully if I am confirmed as General Counsel. I am aware of 
a Victim Witness Assistance Program to help victims of sexual assault 
navigate the military justice process.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. I dealt with this issue to some extent as General Counsel 
of the Air Force. Unrestricted reporting means law enforcement 
involvement and investigation that will ensue upon a report of sexual 
assault; restricted reporting allows a victim to disclose the details 
of the assault to specific individuals and receive medical treatment 
and counseling without involving law enforcement or triggering an 
automatic investigation. As I understand it, the goal of restricted 
reporting is to give the victim the support and confidence eventually 
to come forward with an unrestricted report so the offender can be held 
accountable. In all, there must be a balance between the need for the 
prosecution of sexual offenders on the one hand and the privacy and 
physical and mental well-being of the victim on the other. Finding the 
right balance is a delicate task. I do not now have a view about 
whether DOD has found that right balance.
    Question. What is your understanding of the adequacy of DOD 
oversight of military service implementation of DOD and Service 
policies for the prevention of and response to sexual assaults?
    Answer. I am currently unfamiliar with the adequacy of DOD 
oversight.
                 religious activity in the armed forces
    Question. What is your understanding of current policies and 
programs of the DOD and the Military Services regarding religious 
practices in the military?
    Answer. My understanding is that the Secretary of Defense and his 
staff provide overall policy guidance, and the Secretaries of the Army, 
Navy, and Air Force provide supplemental guidance.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I have not been in DOD for 8 years and, at this time, am 
not in a position to evaluate whether the current policies accommodate 
these important interests imbedded in our Constitution. I appreciate 
the importance of this issue. If confirmed, I hope and expect to review 
this issue in detail.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. See my answer to the prior question.
                             law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on accession by the United States to UNCLOS?
    Answer. Like the President-elect and the current administration, I 
support U.S. accession to the UNCLOS. My understanding is that there 
are important national security interests that are to be furthered by 
U.S. accession. If confirmed, I look forward to working within the new 
administration and with the Senate towards favorable action on the 
Convention during the 111th Congress.
    Question. From a national security standpoint, what do you see as 
the legal advantages and disadvantages of the United States being a 
party to UNCLOS?
    Answer. As I understand it, the Convention secures important 
freedom of navigation rights upon which our maritime forces must be 
able to rely without question. By not being a party to the Convention, 
the United States has had to rely on customary international law, which 
is not universally accepted and can change over time in ways that may 
not be in the best interests of the country. Being a party to the 
Convention places these important navigational rights on the strongest 
legal footing as treaty rights, and gives the United States a seat at 
the table in treaty-based institutions.
    I do not see national security disadvantages of being a party to 
the Convention. Some suggest that being a party could subject our 
maritime forces to the jurisdiction of international tribunals. The 
Convention, however, expressly permits a party to exclude from 
international dispute settlement those matters that concern ``military 
activities,'' and the United States could assert the exclusive right to 
determine what constitutes a military activity.
    Question. In your view, is customary international law alone 
sufficient to safeguard U.S. navigational and overflight rights and 
freedoms worldwide?
    Answer. No. See my prior answer.
             processing the annual dod legislative request
    Question. One of the current responsibilities of the General 
Counsel of DOD is to coordinate the Department's legislative program 
and to provide the Department's views on legislative proposals 
initiated from outside the Department
    If confirmed, what actions will you take to ensure that the 
Department's legislative proposals are submitted in a timely manner to 
ensure ample opportunity for consideration by Congress before mark-up 
of the NDAA?
    Answer. I understand that over the past 3 years, the Office of 
General Counsel has restructured the Department's Legislative Program 
specifically to ensure that the Department transmits the annual 
National Defense Authorization Bill to Congress immediately after the 
President transmits his budget to Congress. If confirmed as DOD General 
Counsel, I will personally monitor this progress, and assess whether 
improvements in the process can be made.
    Question. What actions would you take, if confirmed, to ensure 
Congress receives the Department's views on other proposed legislation 
in a timely manner?
    Answer. When I was General Counsel of the Air Force, I was appalled 
at the slow turnaround time in responding to many letters from 
Congress. I recall one that took almost a year.
    I am told that, over the past 2 years, the Office of General 
Counsel has worked closely with the Office of the Assistant Secretary 
of Defense for Legislative Affairs and OMB to improve the Department's 
responses to requests for views on congressional bills. If confirmed, I 
will work to ensure that the Department provides Congress with timely 
views on proposed legislation.
                            judicial review
    Question. What is your understanding of the appropriate role of the 
Article III courts in the review of military activities?
    Answer. The role of Article III courts in review of military 
activities has been addressed repeatedly by the Supreme Court and lower 
Federal courts. Historically, the courts have afforded great deference 
to the military in the conduct of its affairs. See, e.g., Loving v. 
United States, 517 U.S. 748, 767 (1996); Gilligan v. Morgan, 413 U.S. 
1, 4, 10 (1973); Orloff v. Willoughby, 345 U.S. 83, 93-94 (1953). 
However, that deference is not without limits, and since September 11, 
2001, the Supreme Court has found it necessary to assert itself in 
matters of national security and the conduct of military affairs. For 
example, in Hamdi v. Rumsfeld, 542 U.S. 507, 535-36 (2004), Justice 
O'Connor stated ``whatever power the United States Constitution 
envisions for the executive in its exchanges with other nations or with 
enemy organizations in times of conflict, it most assuredly envisions a 
role for all three branches when individual liberties are at stake.''
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the DOD?
    Answer. DOD is the client.
                              legal ethics
    Question. What is your understanding of the action a DOD attorney 
should take if the attorney becomes aware of improper activities by a 
DOD official who has sought the attorney's legal advice and the 
official is unwilling to follow the attorney's advice?
    Answer. Every DOD attorney is under an obligation to faithfully 
comply with all applicable laws and regulations. One such regulation, 
DOD Directive 5505.06, ``Investigations of Allegations Against Senior 
Officials of the DOD,'' requires referral to the DOD IG of senior 
official misconduct, including allegations of a violation of criminal 
law or conflict of interest law. If a DOD attorney learns of improper 
activities by an official who has sought his or her legal advice but is 
unwilling to follow it, the attorney should immediately notify his or 
her legal supervisor (or the senior lawyer in the next higher level of 
his or her organization) for review and appropriate action by that 
higher level attorney. This is the appropriate avenue to escalate 
concerns to ensure that corrective action is promptly taken.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed?
    Answer. To my knowledge, the present limits on pro bono activities 
are appropriate. That said, I am aware that there are a number of 
opportunities for DOD attorneys to be involved in many types of pro 
bono activities. If confirmed, for example, I intend to encourage DOD 
attorneys to participate in bar association activity. I believe that 
involvement by DOD attorneys in professional legal associations 
contributes to professional development.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in DOD provide adequate guidance?
    Answer. With respect to professional responsibility rules in DOD, I 
am aware that all DOD attorneys are required to be licensed to practice 
in a State, the District of Columbia, or a United States commonwealth 
or territory. DOD attorneys must also adhere to the highest standards 
of professional conduct, including compliance with the rules of 
professional conduct of their State bar(s) and any supplemental 
requirements imposed by their DOD component. If confirmed, I will 
examine the adequacy of the professional responsibility rules for 
lawyers in the Office of the DOD General Counsel and the DLSA, and make 
appropriate modifications or issue supplemental guidance if warranted.
                 role in the officer promotion process
    Question. In your view, what is the role of the General Counsel of 
DOD in ensuring the integrity and proper functioning of the officer 
promotion process?
    Answer. It is essential that the integrity and independence of the 
promotion selection process be maintained. Based on my prior experience 
as General Counsel of the Air Force, I know that the Secretary of each 
Service, in consultation with his or her own general counsel and Judge 
Advocate General, has the initial responsibility to ensure that the 
promotion selection process for both regular and Reserve officers is in 
compliance with law and DOD policy. I am also aware that all reports of 
promotion selection boards are reviewed by the Office of the DOD 
General Counsel prior to final action on the report by the Secretary or 
Deputy Secretary of Defense. If the DOD General Counsel determines that 
a promotion selection board fails to conform to law or policy, it would 
be the duty of the General Counsel to inform the Secretary or Deputy 
Secretary of Defense of the irregularities and to recommend appropriate 
corrective action. Further, in providing advice to the Office of the 
Under Secretary of Defense for Personnel and Readiness, the General 
Counsel should ensure that officer promotion policies promulgated in 
DOD regulations fairly and accurately reflect provisions of law set out 
in title 10.
    Question. What is the role of the General Counsel of DOD, if any, 
in reviewing and providing potentially adverse information pertaining 
to a nomination to the Senate Armed Services Committee?
    Answer. It is my understanding that the Office of the DOD General 
Counsel reviews all nomination packages pertaining to general and flag 
officers with attributed adverse information before the package is 
forwarded to the Secretary or Deputy Secretary of Defense for approval. 
The General Counsel ensures that any adverse information attributed to 
such officers is supported by evidence in the associated reports of 
investigation. I am informed that the DOD General Counsel frequently 
provides specific advice to the Under Secretary of Defense for 
Personnel and Readiness, the Deputy Secretary of Defense, and the 
Secretary of Defense concerning difficult or unusual cases. The General 
Counsel also shares responsibility for ensuring that adverse 
information communicated to the Armed Services Committee is provided in 
an accurate, comprehensive, and timely manner. Further, I am advised 
that the DOD Office of General Counsel is actively involved in ensuring 
that the Armed Services Committee is notified in a timely manner about 
recently initiated investigations involving officers pending 
confirmation.
             litigation involving the department of defense
    Question. In your opinion, what is the relationship between DOD and 
the Department of Justice with respect to litigation involving DOD?
    Answer. The Department of Justice has statutory responsibility to 
represent the United States, its agencies, and its officers, including 
DOD, in all litigation matters. See 28 U.S.C. Sec. 516. However, DOD 
attorneys work directly with counsel at the Department of Justice in 
cases in which DOD, or one or more of its components or officials, is a 
party or has an interest. DOD attorneys review pleadings before they 
are filed with the courts, conduct and direct discovery, participate in 
making major litigation decisions, and in some cases serve as members 
of trial teams.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. If confirmed, I am sure I will review this issue.
                       court of appeals decision
    Question. On January 4, 2000, the United States Court of Appeals 
for the District of Columbia Circuit decided the case of National 
Center for Manufacturing Sciences v. Department of Defense, 199 F. 3d 
507 (D.C. Cir. 2000). The court concluded that ``Because of the 
existence of 10 U.S.C. section 114, it is clear that any monies 
appropriated for National Center for Manufacturing Sciences by Congress 
for research must be authorized before they can be appropriated and 
distributed''; and ``Because 10 U.S.C. section 114(a)(2) requires 
authorization of these funds before they become available, 
appropriation alone is insufficient.''
    What is your view of the court's decision in this case and its 
implications regarding the obligation of funds that are appropriated, 
but not authorized?
    Answer. I am generally aware of this case. It was decided while I 
was General Counsel of the Air Force. In addition, I am aware that 
there is doubt about whether funds can be utilized that are 
appropriated but not authorized. In my experience, situations where 
funds have been appropriated but not authorized are often complex and 
may involve unique statutory language. As a result, if confirmed, I 
hope and expect that the Department, and the DOD General Counsel, will 
continue its practice of working closely with our oversight committees 
whenever this situation appears to be presented.
               role in military personnel policy matters
    Question. What role, if any, should the General Counsel play in 
military personnel policy and individual cases, including cases before 
the Service boards for the correction of military records?
    Answer. The potential range of issues that might require legal 
advice from the DOD General Counsel's office is very broad. The Office 
of General Counsel provides legal advice with respect to policy issues 
pertaining to military personnel, working closely with the Office of 
the Under Secretary of Defense for Personnel and Readiness, which has 
overall responsibility for departmental guidance for the correction 
boards.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next General Counsel of DOD?
    Answer. Regardless of the substantive issues facing the Department, 
the military and civilian attorneys in the Department must work 
collaboratively to provide the highest quality, timely service to the 
Department and its leadership.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I plan to work closely with both the senior 
civilian and military attorneys across the Department to build the 
critical relationships necessary to successfully serve our clients in 
the highest traditional of public service.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the General Counsel of DOD?
    Answer. There is always room for improvement, but I believe the DOD 
General Counsel's office is one of the finest law offices I have 
encountered, with many talented, dedicated, and extraordinary career 
professionals. Since I last worked in the Pentagon, the challenges 
facing DOD General Counsel have become far more complex in the post-
September 11 world. It will be the highest honor of my professional 
career to lead this fine group of men and women in meeting those 
challenges.
    Question. What management actions and timelines would you establish 
to address these problems?
    Answer. If confirmed, I will encourage the Department's senior 
civilian and military attorneys to work collaboratively to provide 
timely legal advice of the highest quality to our clients.
    Question. What do you see as the greatest legal problems facing the 
Department in the coming year?
    Answer. The world has changed since I last worked in the Pentagon 
in January 2001, and my single greatest reason for wanting to return to 
public service is to help combat international terrorism. I was a 
personal witness to the events of September 11, 2001. We must imagine, 
prepare for, and try to prevent the next attack, not the last one, and 
the greatest challenge of the DOD General Counsel going forward will be 
to find legal solutions and the best legal advice to promote our 
national security while safeguarding our individual liberties and 
American values.
    Question. Does the Office of the General Counsel have the resources 
to deal with these problems and do its everyday work?
    Answer. If confirmed, I will assess whether the resources available 
to the DOD General Counsel are sufficient to perform the tasks 
described above.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
DOD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Daniel K. Akaka
                         guantanamo bay reviews
    1. Senator Akaka. Mr. Johnson, DOD conducts Administrative Review 
Boards at Guantanamo Bay (GTMO) to determine if a detainee will be 
released, transferred, or retained. According to a Pentagon spokesman 
on the GTMO issue, ``Since 2002, 61 former detainees have committed or 
are suspected to have committed attacks after being released from the 
detention camp.'' This number has increased since a March 2008 Pentagon 
report cited 37 former detainees had been suspected of terrorist 
activities. In your view, to what extent has the Administrative Review 
Boards been able to establish effectively mitigation of risk that a 
released/transferred detainee will return to the fight?
    Mr. Johnson. I am aware of Administrative Review Boards and the 
role they play. However, I do not have enough information about 
Administrative Review Boards at this point to comment on their 
effectiveness, including whether Administrative Review Boards 
effectively consider the risk that a detainee will ``return to the 
fight.'' If confirmed, I expect to examine this issue carefully as part 
of the detainee review ordered by the President.
                                 ______
                                 
               Question Submitted by Senator Bill Nelson
                sexual assaults in iraq and afghanistan
    2. Senator Bill Nelson. Mr. Johnson, untold numbers of sexual 
assaults have been committed in Iraq and Afghanistan by executive 
branch contractors and employees. In 2007, I sent letters regarding 
sexual assault to the Secretaries of Defense and State and the Attorney 
General. On December 13, 2007, I wrote to Secretary of Defense Gates, 
requesting that he launch an investigation by the Defense Department's 
Inspector General (DOD/IG) into rape and sexual assault cases in Iraq 
and Afghanistan. Following my letters, the DOD/IG stated that the Army 
Criminal Investigation Command (CID) investigated 41 sexual assaults in 
Iraq in 2005, 45 sexual assaults in 2006, and 38 sexual assaults in 
2007. These numbers are limited to only 3 years' worth of 
investigations by the Army in Iraq. They do not include investigations 
for both theaters of operations nor all the Services operating in Iraq 
and Afghanistan. Consequently, there could be many additional 
investigations and assaults that have not been investigated. Also, 
because the DOD/IG would not provide information on the status of its 
investigations, it remains unclear how many of these cases have been 
prosecuted and/or processed within the military or criminal justice 
systems. If confirmed, how will you work with your counterparts at the 
Departments of State, Justice, and other executive branch departments 
with regard to contractor crimes in Iraq and Afghanistan?
    Mr. Johnson. Regrettably, as you state, there have been reported 
cases of sexual assaults committed in Iraq and Afghanistan. By any 
measure, these numbers are unacceptable. Even one case of sexual 
assault is one too many. In 2004, DOD created the Sexual Assault and 
Prevention Office to establish policy and procedures to address the 
various issues and difficulties encountered by victims of sexual 
assault worldwide. I understand also that attorneys of the Office of 
the General Counsel have been instrumental in providing legal advice 
and guidance in the development and implementation of those various 
policies. I am told that attorneys in the Office of the General Counsel 
work closely with Department of Justice officials on all reported cases 
of crimes committed in Iraq and Afghanistan where there is the 
possibility of prosecution under the Military Extraterritorial 
Jurisdiction Act or other Federal criminal jurisdiction, and cases 
involving civilians during contingency operations for which the 
recently-expanded jurisdiction of the Uniform Code of Military Justice 
is available. If I am confirmed, I will see to it that the Office of 
the General Counsel will continue to be in the forefront of these 
efforts to hold accountable those who commit crimes while serving with 
or accompanying the Armed Forces outside the United States, as well as 
civilian contractors or employees of other Federal agencies whose 
employment relates to supporting the DOD mission overseas.
                                 ______
                                 
                Question Submitted by Senator Mark Pryor
                       breakdown of communication
    3. Senator Pryor. Mr. Johnson, the Senate Armed Services Committee 
report of its Inquiry into the Treatment of Detainees in U.S. Custody 
discovered a fundamental breakdown in communication between the 
respective Services' Counsels and that of DOD General Counsel. Such a 
breakdown could even be interpreted as General Counsel's blatant 
disregard for the opinion and counsel from the uniformed services. I 
believe the committee's report is quite clear about this correlation. 
As General Counsel to the Secretary of Defense, how will you establish 
a better working relationship with the Services to keep such a 
breakdown in communication from ever happening again?
    Mr. Johnson. I was General Counsel of the Air Force from October 
1998 to January 2001. As such, I appreciate the role the Service 
General Counsels play and their importance within the overall DOD legal 
community. Further, while Air Force General Counsel, I had extensive 
experience working in a collegial and collaborative fashion with The 
Judge Advocate General of the Air Force and his staff to deliver 
effective legal service and advice to the Air Force's leadership. If 
confirmed as General Counsel of DOD, I intend to continue that kind of 
positive working relationship with all Judge Advocates General and the 
Staff Judge Advocate to the Commandant of the Marine Corps.
    As I stated during my testimony on January 15, my approach to legal 
analysis includes hearing from other senior counsel, such as The Judge 
Advocates General, as well as junior military and civilian lawyers 
working on the issue. Moreover, if I know that the Department's 
military lawyers have a strong view on a matter, I have in the past, 
and expect in the future, if confirmed, to include The Judge Advocates 
General collaboratively in discussions and deliberations on such 
issues. I believe that having the input of a cross-section of the 
Department's lawyers is important to being able to provide the best 
legal advice to the senior civilian and military leadership.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                               detainees
    4. Senator McCain. Mr. Johnson, the Detainee Treatment Act of 2005 
provides that no individual in the custody or under the physical 
control of the United States Government, regardless of nationality or 
physical location, shall be subject to cruel, inhuman, or degrading 
treatment or punishment. Do you agree that this standard applies to all 
detainees in U.S. custody, including those detained by the military but 
who may be subject to interrogation by other U.S. Government agencies?
    Mr. Johnson. Yes.

    5. Senator McCain. Mr. Johnson, if confirmed, how do you intend to 
ensure the standard is followed by U.S. forces worldwide?
    Mr. Johnson. If confirmed, as part of the detainee review ordered 
by the President, I intend to examine thoroughly all detainee-related 
regulations and directives to ensure that this standard is clearly and 
effectively communicated throughout the Department and to U.S. forces 
worldwide.

                             guantanamo bay
    6. Senator McCain. Mr. Johnson, President-elect Obama has said he 
wants to close the military detention facility at GTMO. If confirmed, 
how would you go about executing the President-elect's policy? How 
would you approach this challenge?
    Mr. Johnson. The President has directed the closure of the 
detention facilities at GTMO, in an Executive order signed on January 
22, 2009. If confirmed, I expect to provide legal advice to the 
Department as it works closely with other departments and agencies to 
implement all aspects of this important Executive order.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                             guantanamo bay
    7. Senator Collins. Mr. Johnson, President-elect Obama has 
indicated his desire to close the detention facility at Naval Station 
Guantanamo Bay. What would be your recommendation to Secretary Gates as 
to what to do with the detainees once GTMO is closed?
    Mr. Johnson. The President has directed the closure of the 
detention facilities at GTMO, in an Executive order signed on January 
22, 2009. If confirmed, I expect to provide legal advice to the 
Department as it works closely with other departments and agencies to 
implement all aspects of this important Executive order. At this point, 
I do not have specific recommendations for Secretary Gates about what 
to do with any remaining detainees once GTMO is closed. In my view, 
decisions concerning the detainees should be guided by several 
principles: adherence to the laws and American values; public safety; 
bringing to justice those detainees who can and should be prosecuted; 
and the risk of recidivism, i.e., the risk that a detainee released or 
transferred could return to the fight.
                                 ______
                                 
    [The nomination reference of Jeh Charles Johnson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jeh Charles Johnson, of New York, to be General Counsel of the 
Department of Defense, vice William J. Haynes II, resigned.
                                 ______
                                 
    [The biographical sketch of Jeh Charles Johnson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Jeh C. Johnson
    Jeh Charles Johnson is a partner in the New York City-based law 
firm of Paul, Weiss, Rifkind, Wharton & Garrison, LLP.
    Mr. Johnson's career has been a mixture of successful private law 
practice (as an experienced trial lawyer) and distinguished public 
service (as a Federal prosecutor and presidential appointee). In 
private practice, Mr. Johnson has personally tried some of the highest 
stakes commercial cases of recent years. At age 47, he was elected a 
Fellow in the prestigious American College of Trial Lawyers. His 
experience as a trial lawyer began in 1989-1991, as an Assistant United 
States Attorney in the Southern District of New York, where he 
prosecuted public corruption cases.
    In 1998, Mr. Johnson left Paul, Weiss for 27 months when President 
Clinton appointed him General Counsel of the Department of the Air 
Force. In 2004, Mr. Johnson served as Special Counsel to John Kerry's 
presidential campaign. He was also actively involved in Barack Obama's 
presidential campaign as an advisor on national security and 
international law issues. In January 2007, Mr. Johnson was nominated by 
the bipartisan New York State Commission on Judicial Nomination to be 
Chief Judge of New York. The incumbent Judith Kaye was reappointed by 
Governor Spitzer. Mr. Johnson was rated ``well-qualified'' for the 
position by the New York State Bar Association--the highest rating it 
can give.
    While in private practice, Mr. Johnson is active in professional 
and community activities. From 2001-2004, he was Chair of the Judiciary 
Committee of the New York City Bar Association, which rates and 
approves all the Federal, state and local judges in New York City. He 
now serves on the Executive Committee of the City Bar.
    Mr. Johnson is a member of the Council on Foreign Relations and the 
American Law Institute. He currently serves on the Board of Governors 
of the Franklin and Eleanor Roosevelt Institute and the Board of 
Advisors of the National Institute of Military Justice. Mr. Johnson is 
a past or present director or trustee of Adelphi University, the 
Federal Bar Council, the Fund for Modem Courts, the New York Community 
Trust, the Legal Aid Society, the Delta Sigma Theta Research and 
Education Fund, the Vera Institute, the Lawyers' Committee for Civil 
Rights Under Law, the New York Hall of Science, the Film Society of 
Lincoln Center and the New York City Bar Fund, Inc. in 1995-1997.
    Mr. Johnson graduated from Morehouse College in 1979 and Columbia 
Law School in 1982.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Jeh Charles 
Johnson in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jeh Charles Johnson.

    2. Position to which nominated:
    General Counsel of the Department of Defense.

    3. Date of nomination:
    Intention to nominate issued January 8, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 11, 1957; New York, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Dr. Susan M. DiMarco.

    7. Names and ages of children:
    Jeh Charles Johnson, Jr. (born September 19, 1994).
    Natalie Marguerite Johnson (born December 6, 1995).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Morehouse College, August 1975-May 1979, B.A. 1979.
    Columbia University School of Law, August 1979-May 1982, J.D. 1982.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Associate; Sullivan & Cromwell; 125 Broad Street; New York, NY; 
September 1982-October 1984.
    Associate; Paul, Weiss, Rifkind, Wharton & Garrison LLP; 1285 
Avenue of the Americas; New York, NY; November 1994-December 1988.
    Assistant United States Attorney; One Saint Andrews Plaza; New 
York, NY; January 1989-December 1991.
    Associate, then partner; Paul, Weiss, Rifkind, Wharton & Garrison 
LLP; 1285 Avenue of the Americas; New York, NY; January 1992-October 
1998.
    Adjunct lecturer of law (in trial practice) (volunteer, part-time); 
Columbia University School of Law; 435 West 116th Street; New York, NY; 
January 1995-April 1997.
    General Counsel of the Department of the Air Force; Room 4E856; 
1740 Air Force Pentagon; Washington, DC; October 1998-January 2001.
    Partner; Paul, Weiss, Rifkind, Wharton & Garrison LLP; 1285 Avenue 
of the Americas; New York, NY; January 2001-present.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Transition Team for President-elect Barack Obama, November 2008-
December 2008.
    Transition Team for NYS Attorney General Andrew Cuomo, November 
2006-December 2006.
    Congressional Intern, The Honorable Hamilton Fish, Jr.; 
Poughkeepsie, NY; May 1980-August 1980.
    Senate Intern; The Honorable Daniel P. Moynihan; Washington, DC; 
May 1978-August 1978.
    Congressional Intern; The Honorable Hamilton Fish, Jr.; Washington, 
DC; July 1977.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner; Paul, Weiss, Rifkind, Wharton & Garrison, LLP (law firm).
    Board of Governors, Franklin and Eleanor Roosevelt Institute.
    Director, Federal Bar Foundation.
    Member and Executive Committee member, New York City Bar 
Association.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See the response to question 11 above.
    Member, American Bar Association.
    Fellow, American College of Trial Lawyers.
    Member, Counsel on Foreign Relations.
    Member, Rockefeller Center Club (lunch club).
    Member, Nisi Prius (lunch club).
    Member, Bradford Swim & Tennis Club (local club for family in New 
Jersey).
    Member, American Law Institute.
    Member, Sigma Pi Phi fraternity.
    Member, National Institute of Military Justice.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Member, Dutchess County (New York) Republican Committee (1980-
1981).
    Member, New York County Democratic Committee (1993-1994).
    Delegate, Democratic National Convention (2008).
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    National Finance Committee, Obama for America (2007-2008).
    New York State Counsel to Obama for America (2008).
    Special Counsel, John Kerry for President, Inc. (2008).
    See also the response 13(c) below.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    10/18/2008, Nebraskans for Kleeb $500.
    10/05/2008, Jill Morgenthaler for Congress, $250.
    09/30/2008, Linda Stender for Congress, $500.
    09/26/2008, New Jersey Democratic State Committee, $5,000.
    09/23/2008, Bill Richardson for President Inc., $1,000.
    09/16/2008, Democratic National Committee, $28,460.
    07/31/2008, Hillary Clinton for President, $2,300.
    07/29/2008, Friends of Kevin Parker, $1,000.
    07/24/2008, Obama Victory Fund, $2,300.
    07/09/2008, Committee to Re-Elect Eric Adams, $1,000.
    05/29/2008, Friends of Mark Warner, $2,300.
    05/07/2008, Lautenberg for Senate, $1,000.
    04/23/2008, People for Chris Gregoire, $500.
    04/22/2008, Andre Carson for Congress, $2,000.
    04/20/2008, Senate 2008, $2,000.
    04/01/2008, Patrick Murphy for Congress, $2,300.
    03/29/2008, Paul Hodes for Congress, $1,300.
    03/31/2008, Gillibrand for Congress, $500.
    03/21/2008, Waltner for Congress, $500.
    03/11/2008, Al Franken for Senate, $1,000.
    03/07/2008, Karim Camara, $1,500.
    02/13/2008, Cyrus Vance, Jr. for District Attorney, $1,000.
    12/31/2007, Paul Hodes for Congress, $1,000.
    12/01/2007, John Hall for Congress, $500.
    09/30/2007, Friends of Dick Durbin Committee, $500.
    09/25/2007, Democratic Governors Association, $500.
    09/25/2007, Linda Stender for Congress, $1,000.
    09/18/2007, Our Common Values PAC, $500.
    08/21/2007, Citizens for Harkin, $2,000.
    07/09/2007, Conyers for Congress, $2,000.
    06/13/2007, Friends for Gregory Meeks, $500.
    05/31/2007, Patrick Murphy for Congress, $2,300.
    03/27/2007, Friends of Jim Clyburn, $1,500.
    03/01/2007, Kerry-Edwards 2004, Inc. General Election Legal and 
Accounting Compliance Fund, -$2,000.
    02/09/2007, Linda Stender for Congress, $300.
    01/23/2007, Obama for America, $2,300.
    12/11/2006, Hopefund Inc., $4,000.
    11/04/2006, Harold Ford Jr. for Tennessee, $1,500.
    09/21/2006, Harold Ford Jr. for Tennessee, $2,000.
    09/07/2006, Linda Stender for Congress, $1,600.
    08/18/2006, Richardson for Governor, $1,000.
    08/04/2006, James Webb for U.S. Senate, $2,100.
    06/25/2006, Patterson for Attorney General, $200.
    06/17/2006, Linda Stender for Congress, $500.
    06/15/2006, Hopefund Inc., $1,000.
    06/12/2005, Democratic National Committee, $2,000.
    06/07/2006, Spitzer 2006, $2,000.
    06/06/2006, Menendez for Senate, $2,100.
    06/06/2006, Menendez for Senate, $2,100.
    05/26/2006, Friends of Hillary, $1,000.
    05/20/2006, Lee Harris for Memphis, $250.
    04/13/2006, Democratic National Committee, $1,000.
    03/28/2006, Bill Nelson for Senate, $1,000.
    03/20/2006, David Yassky for Congress, $250.
    02/06/2006, Harold Ford Jr. for Tennessee, $1,000.
    12/06/2005, Friends of Rahm Emanuel, $2,000.
    11/07/2005, Cam Kerry Committee, $500.
    11/02/2005, Spitzer 2006, $1,000.
    05/15/2005, Spitzer 2006, $1,000.
    04/25/2005, Carol March for Mayor, $250.
    04/13/2005, Deval Patrick, $500.
    01/08/2005, Mark Green for Attorney General, $1,000.
    11/23/2004, Jun Choi for Assembly, $100.
    09/12/2004, Kerry-Edwards Victory 2004, $1,000.
    07/08/2004, Obama for Illinois Inc., $250.
    06/08/2004, Obama for Illinois Inc., $250.
    06/06/2004, Garodnick for New York, $1,000.
    05/19/2004, Spitzer 2006, $1,000.
    05/07/2004, Max Sandlin for Congress, $100.
    04/23/2004, Texas Fund, $500.
    04/05/2004, Rahm Emanuel for Congress, $1,000.
    03/01/2004, Rangel for Congress, $100.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Recipient, DOD Decoration for Exceptional Civilian Service, 2001.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Mock Juries, Why Use Them?'' Litigation Magazine (article on use 
of mock juries, written in July 2008, to be published).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Jeh Charles Johnson.
    This 12th day of January, 2009.

    [The nomination of Jeh Charles Johnson was reported to the 
Senate by Chairman Levin on February 5, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 9, 2009.]


 
 NOMINATIONS OF DR. ASHTON B. CARTER TO BE UNDER SECRETARY OF DEFENSE 
 FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; DR. JAMES N. MILLER, JR., 
  TO BE DEPUTY UNDER SECRETARY OF DEFENSE FOR POLICY; AND AMBASSADOR 
    ALEXANDER R. VERSHBOW TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
                     INTERNATIONAL SECURITY AFFAIRS

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
McCaskill, Hagan, Begich, Burris, McCain, Inhofe, Sessions, 
Chambliss, Thune, Burr, and Vitter.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; Mark 
R. Jacobson, professional staff member; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; William G.P. 
Monahan, counsel; Russell L. Shaffer, counsel; and William K. 
Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Pablo E. Carrillo, minority investigative 
counsel; Richard H. Fontaine, Jr., deputy Republican staff 
director; Paul C. Hutton IV, professional staff member; Daniel 
A. Lerner, professional staff member; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Christopher J. Paul, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Kevin A. Cronin, Jessica L. 
Kingston, and Christine G. Lang.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Christopher Griffin and Vance 
Serchuk, assistants to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Michael Harney, 
assistant to Senator Hagan; Brady King, assistant to Senator 
Burris; Anthony J. Lazarski, assistant to Senator Inhofe; 
Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Jason Van Beek, assistant to Senator Thune; Dan Fisk and Brian 
W. Walsh, assistants to Senator Martinez; Chris Joyner and 
Kevin Kane, assistants to Senator Burr; Michael T. Wong, 
assistant to Senator Vitter; and Chip Kennett, assistant to 
Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
today considers the nominations of Ashton Carter to be Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(AT&L); James Miller to be Deputy Under Secretary of Defense 
for Policy; and Alexander Vershbow to be Assistant Secretary of 
Defense for International Security Affairs.
    Each of our nominees has a long track record of public 
service. Dr. Carter served as Assistant Secretary of Defense 
for International Security Policy from 1993 to 1996. Since that 
time he's continued to serve as a member of the Defense Science 
Board and the Defense Policy Board, co-chair of the Review 
Panel on Future Directions for the Defense Threat Reduction 
Agency, member of the National Missile Defense White Team, and 
a member of the National Academy of Sciences Committee on 
International Security and Arms Control.
    Dr. Miller served as Deputy Assistant Secretary of Defense 
for Requirements, Plans, and Counterproliferation Policy from 
1997 to 2000 and as a professional staff member for the House 
Armed Services Committee from 1988 to 1992.
    Mr. Vershbow is a career foreign service officer who has 
served as Ambassador to the Republic of Korea from 2005 to 
2008, as Ambassador to Russia from 2001 to 2005, and as 
Ambassador to the North Atlantic Treaty Organization (NATO) 
from 1998 to 2001.
    We welcome our witnesses and we welcome their families to 
today's hearing. Senior Department of Defense (DOD) officials 
put in long hours every day. We appreciate the sacrifices that 
our nominees and their families--and we emphasize that--are 
willing to make to serve their country.
    Dr. Carter, if confirmed, will assume leadership of DOD's 
acquisition organization at a particularly difficult time. 
According to recent estimates, the Department's 95 Major 
Defense Acquisition Programs (MDAPs) have exceeded their 
research and development budgets by an average of 40 percent, 
seen their acquisition costs grow by an average of over 25 
percent, and experienced an average schedule delay of almost 2 
years.
    Last summer, the Government Accountability Office (GAO) 
reported that cost overruns on these major acquisition programs 
now total $295 billion over the original estimates, even though 
we have cut unit quantities and reduced performance 
expectations on many programs in an effort to hold down costs. 
These problems are the consequence of the Department's 
continuing failure to develop reasonable cost and schedule 
estimates at the beginning of program, failure to establish 
realistic performance expectations, failure to use mature 
technologies, and failure to avoid costly changes to program 
requirements, production quantities, and funding levels in the 
middle of ongoing programs.
    Over the last few years, these problems have been 
compounded by an alarming lack of acquisition planning across 
the Department, the excessive use of time and materials 
contracts, undefinitized contracts and other open-ended 
commitments with DOD funds, and a pervasive failure to perform 
contract oversight and management functions necessary to 
protect the taxpayers' interest.
    Dr. Miller will join DOD when almost 200,000 U.S. soldiers, 
sailors, airmen, and marines are deployed in harm's way in Iraq 
and Afghanistan alone. Dr. Miller will play a key role in 
facing the challenge of managing the transition between two 
ongoing wars, drawing down in Iraq as we build up in 
Afghanistan. He will help shape our policies in other key areas 
around the world, from countering the potential threat of a 
nuclear Iran to developing a common approach with our 
international partners for addressing North Korea. He will also 
help lead the 2010 Quadrennial Defense Review (QDR), which 
should get underway in the near future.
    Ambassador Vershbow when he becomes Assistant Secretary of 
Defense for International Security Affairs will have the 
responsibility for helping to develop the Department's policies 
relating to Iraq, the Middle East, Europe, Africa, and Eurasia. 
In this capacity he will oversee our relations with our NATO 
partners who are contributing to coalition operations in 
Afghanistan, Kosovo, and elsewhere. He is also likely to play a 
key role as we seek to improve our relations with Russia, a 
country where he served with distinction as Ambassador for 5 
years.
    I look forward to the testimony of our nominees on these 
issues.
    Senator McCain is on his way, and in a way it's a break 
that he's a little bit late because that gives us an 
opportunity to call on Senator Lieberman, who has another 
responsibility as chairman of the Senate Homeland Security and 
Governmental Affairs Committee in just a few minutes. So we're 
going to call on you, Senator Lieberman, for your introduction. 
We're delighted you're here.

 STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Lieberman. Thank you very much, Mr. Chairman. I 
appreciate your courtesy. I'm sorry that I can't stay for the 
hearing because we have one in Homeland Security and some 
nominees.
    I must say, this gives me a different perspective on the 
committee and the staff, being at this lower altitude.
    Chairman Levin. We hope you'll remember that. [Laughter.]
    Senator Lieberman. Exactly. I was going to say, I will show 
you more than the normal respect than I do from this altitude.
    Thank you. I'm here to introduce and to support the 
nomination of Dr. Ash Carter, but I must say that these are 
three remarkable individuals. We are very fortunate that they 
are prepared to serve our country, and I think it shows 
President Obama's good judgment and really high standards in 
making these picks.
    I must say as a U. Conn. [University of Connecticut] 
Huskies fan that my confidence in the President's judgment has 
been shaken somewhat by his failure to put the Huskies in the 
Final Four for the NCAA [National Collegiate Athletic 
Association] brackets.
    Chairman Levin. He has a lot on his plate, so I think it's 
understandable.
    Senator Lieberman. I understand. My confidence has been 
shored up by these three nominees.
    I am here to introduce Ash Carter. I suppose that my 
constituency claim to Ash is that he spent 4 great years of his 
life in New Haven, CT, at college. But we've come to know each 
other very well over the ensuing years. I'm proud to consider 
him a friend. I've greatly benefited from his thinking on 
matters of national security. He has an extraordinary CV, which 
is before you: a double major, interestingly, in medieval 
history and physics at Yale; then a Rhodes scholarship and a 
doctorate at Oxford in theoretical physics.
    Of course, he comes to us now from his position on the 
faculty at the Kennedy Center at Harvard. He served on the 
Defense Science Board from 1991 to 1993, and then as Assistant 
Secretary of Defense for International Security Policy. He was 
in that position for 4 years, during his tenure led the multi-
billion dollar Cooperative Threat Reduction, the Nunn-Lugar 
Program supporting the removal of nuclear, biological, and 
chemical weapons from the former Soviet Union; and worked very 
closely with former Defense Secretary William Perry.
    He really brings a remarkable array of talents to this 
position of Under Secretary of Defense for AT&L. He combines 
both program execution experience with remarkable capability to 
both formulate and see through policy transformations. Ash 
Carter understands that the acquisition part of this position 
is of intense interest to members of this committee, to 
Congress, to the country, because of the persistent overruns in 
the cost of systems that we are acquiring. He understands our 
concern about the number and quality of acquisition personnel. 
I think he really will bring a tough, fresh, pro-taxpayer, pro-
national security view to this work.
    As I say, he has remarkable policy judgment and policy 
experience, which I think will benefit the Department overall 
on some of the major questions about, particularly in a 
resource-constrained environment, which systems should we 
acquire. For instance, how can we through the acquisition 
process implement the high hopes of the Goldwater-Nichols joint 
warfighting vision, which has been realized in many ways and 
still not fully in acquisition.
    I can go on a long time about Ash Carter. I will just say 
that I think we're very fortunate in him and his wonderful 
family that's with him, and that he's agreed to come back to 
Washington to serve our Nation. We will all be better and safer 
as a result of it, and of course I hope that our committee will 
recommend him favorably to the Senate.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman. Your 
introduction's not only significant to Dr. Carter, it's very 
significant, of course, to us. Thank you for working this into 
your schedule. Senator Kennedy also has an introduction for Dr. 
Carter and we'll put a copy of that statement into the record 
here.
            Prepared Statement by Senator Edward M. Kennedy
    It's a privilege to welcome Ash to the Senate Armed Services 
Committee and I look forward to his confirmation as Under Secretary of 
Defense for Acquisition, Technology, and Logistics. I know that Ash has 
impressive plans for the Department of Defense and I look forward to 
working with him on a range of issues.
    Ash brings a wealth of experience to this position both from the 
private sector and his role as Assistant Secretary of Defense for 
International Security Policy under President Clinton. Most recently, 
he's been Ford Foundation Professor of Science and International 
Affairs at the Kennedy School at Harvard, where he led the faculty as 
Chair of the Department of International Relations, Security and 
Science. He is also a trustee at the Mitre Corporation and an adviser 
at MIT's Lincoln Laboratory and Draper Laboratory.
    Ash has been a respected leader in national security for many 
years. Now more than ever, the Nation needs his skills and commitment. 
I strongly support his nomination, and I look forward very much to his 
confirmation by the Senate.

    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Thanks, Senator Lieberman, for introducing our nominees 
today. Dr. Carter and Dr. Miller each have previously served in 
the Office of the Secretary of Defense (OSD), and Ambassador 
Vershbow, you have a distinguished career of service in the 
Foreign Service. I thank you all for your willingness to serve 
in these extraordinary positions of importance in DOD.
    Dr. Miller and Ambassador Vershbow, I expect that they're 
awaiting your arrival. Your responses to the committee's 
advance policy questions (APQs) reflect, I believe correctly, 
the high priority that must be placed on achieving success in 
Iraq and Afghanistan. I look forward to working with you.
    Dr. Carter, the need for comprehensive acquisition reform 
at DOD is an imperative. The American people can't afford the 
costly weapons procurement failures and mismanagement we've 
seen in the past. If confirmed as Under Secretary of Defense 
for AT&L, obviously you must ensure that acquisition 
decisionmaking is fiscally sound and responsive to our national 
security imperatives.
    Perhaps no two programs reflect the problems in DOD 
procurement more than the F-35 Joint Strike Fighter (JSF) 
program and the Army's Future Combat Systems (FCS) program. The 
cost of the JSF program has increased 47 percent since 2001, 
from $65 million to $105 million per aircraft. What's even more 
troubling is that we don't know how much higher the cost of the 
program will go because the program is scheduled to buy 360 
aircraft under a cost reimbursable contract, with only 2 
percent of its development flight testing completed and 
critical technologies essential for the program remaining 
immature.
    Similarly, the FCS program, according to GAO, is ``unlikely 
to be executed within the Department's $159 billion cost 
estimate.'' In fact, consensus is emerging that the cost of 
that program is likely to balloon to over $200 billion. Yet, 
having already invested billions in that program, the Army is 
in many respects closer to the beginning of development than it 
is to the end.
    Adding to the existing litany of failed or failing major 
defense programs, the status of the JSF and FCS programs lead 
to the unavoidable conclusion that the current acquisition 
process is broken. I won't go into the presidential helicopter 
issue.
    Unless difficult decisions are made and serious reform 
measures undertaken, our ability to provide for our national 
security will be over time fundamentally compromised. The 
endless cycle of runaway costs, prolonged delivery schedules, 
and poor performance in the acquisition of major weapons has in 
my view mired us in a form of unilateral disarmament.
    Dr. Carter, your cumulative experience and expertise in a 
wide range of defense-related matters is notable. However, I do 
have concerns about your lack of in-depth experience in 
acquisition-related matters. I'll look forward to your telling 
us about that. By the same token, I understand that experience 
alone is no guarantee of success in the arena you're about to 
enter.
    I sincerely hope that you will bring needed clarity of 
vision and skill in management to this position. I look forward 
to your testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Now, we do expect Senator Reed to be here at any moment to 
make his introduction of Dr. Miller, but we are going to 
proceed and if he is able to get here he will make that 
introduction at that time.
    I would suggest, Ambassador Vershbow, that you now move 
over one seat to your right and shift your name plate for us.
    I will ask you first for your opening statements. Dr. 
Carter, let me call on you first, and then I'll ask you the 
standard questions when you're all done with your statements. 
Dr. Carter.

   STATEMENT OF ASHTON B. CARTER, PH.D., NOMINEE TO BE UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Dr. Carter. Thank you, Mr. Chairman, members. Thank you for 
giving me the opportunity to appear before you as the nominee 
for the position of Under Secretary of Defense for AT&L. I 
thank Senator Lieberman for introducing me, and my wonderful 
wife Stephanie and my daughter Ava and my son Will for their 
support.
    I'm humbled, but challenged, by the magnitude of President 
Obama's, Secretary Gates', and this committee's needs for this 
job in these times, times in which the world is perilous, but 
moreover when the perils are changing rapidly, times of severe 
budget pressures against a background of economic crisis, and 
times of poor performance in how we conceive and buy the 
defense systems we need, poor performance that is widely 
acknowledged.
    What is not changing is that the world looks to the United 
States to use its power for good, and that power depends in the 
first measure on the impressive quality of the soldiers, 
sailors, airmen, and marines who make up our military, but 
importantly also on the equipment and technology they have.
    I seek the consent of this committee and the Senate for 
this job. The constitutional phrase is ``advice and consent.'' 
I certainly require your consent. But in view of the challenges 
to the Department, I'm going to need your advice, too. Some of 
that advice is contained in your legislation, the Weapons 
Acquisition Reform Act of 2009. I've read it carefully and I 
endorse its aims. If confirmed, I pledge to you, Mr. Chairman, 
to you, Senator McCain, and the other members of this committee 
to benefit from your long experience and dedication in this 
field.
    The job of Under Secretary of Defense for AT&L has several 
dimensions and I'd like to address each one briefly in turn. 
First and foremost is to get under control the many troubled 
programs that are supposed to be supporting our troops, present 
and future. As this committee well knows, too many of these 
programs are failing their cost, schedule, and performance 
expectations, and some are failing even more fundamentally the 
test of whether they are needed for the future military 
challenges we are most likely to face.
    The state of these programs is not acceptable to the 
warfighter or to the taxpayer, and job one for the person who 
occupies the position for which I appear before you as the 
nominee is to get them under control.
    I've had 25 years of experience working with and for DOD 
and its supporting defense industry and laboratories. I began 
my work in DOD with Secretary Caspar Weinberger on technical 
aspects of space, nuclear, command and control, and strategic 
defense programs in the 1980s. In the 1990s I was privileged to 
serve as Assistant Secretary of Defense.
    In between government service, I have been a faculty member 
at Harvard's Kennedy School, director of its largest research 
center, and chair of the International and Global Affairs 
Faculty, a senior partner of Global Technology Partners, and a 
consultant and adviser to defense companies, to DOD 
laboratories and Federally Funded Research and Development 
Centers (FFRDCs), a member of the Defense Science Board and of 
DOD's Threat Reduction Advisory Council.
    I believe I know the security challenges this Nation faces, 
the needs and workings of DOD, the nature of the defense 
industry and the demands upon it, and the views and policies 
laid down by this committee. I believe I know how to work with 
all parties over time to find the right path out of the woods 
for these many troubled programs, and if confirmed, I will try 
to do just that.
    A second challenge for the incumbent of this job is to 
reform the acquisition system itself so we don't get ourselves 
into this situation again. One problem among many that 
Secretary Gates has stressed and that is just unacceptable in 
time of war is the apparent inability of the acquisition system 
to provide systems in months rather than years or even decades.
    I concur with Secretary Gates that there is no silver 
bullet that will fix defense acquisition, and indeed the many 
troubled programs in DOD today--and Senator McCain has named 
two of them--have each its own history and reasons for getting 
into trouble, and no changes to the acquisition system itself 
can substitute for good sense, good discipline, alignment of 
what we buy with what our strategy requires, and above all good 
people performing the acquisition function. But it's also true, 
to paraphrase Eisenhower, that the right system might not 
guarantee success, but the wrong system guarantees failure.
    I participated in many panels and studies that have 
assessed the defense acquisition system going back to the 
1980s. I've even written a few books about it. I've also served 
for nearly 2 decades as a board member and consultant to the 
MITRE Corporation, which is DOD's systems engineering and 
acquisition support FFRDC. I've a strong familiarity with the 
acquisition practices and key programs of DOD and the 
Intelligence Community and also a strong commitment to reform.
    A third critical responsibility of this job is to oversee 
the science and technology (S&T) efforts of the Department. As 
a physicist, I have a deep appreciation for the fact that S&T 
is the key source of this Nation's comparative advantage in 
military affairs. But this advantage is not a birthright and 
needs constant attention, especially in a world where the 
science and engineering base outside of defense and outside of 
this country is growing rapidly.
    I keep closely abreast of the development in defense 
technology, among other ways, through my affiliations with the 
Massachusetts Institute of Technology's Lincoln Laboratory and 
the Draper Laboratory and through membership in various panels 
of the National Academy of Sciences. If confirmed, I will be 
committed to preserving DOD's technological edge.
    Fourth and finally, the Under Secretary of Defense for AT&L 
plays a key role in our nuclear deterrent and in other 
strategic issues--missile defense, space, and cyber. I've been 
deeply involved in technical aspects of nuclear weapons and 
missile defense since the 1980s, when I worked on technical 
aspects of MX missile basing in the Strategic Defense 
Initiative. I conducted the 1994 Nuclear Posture Review (NPR) 
for President Clinton and, through the Nunn-Lugar program for 
which I had responsibility, worked to de-nuclearize Ukraine, 
Kazakhstan, and Belarus. More recently, I have served as expert 
working group chair for the Commission on the Future Strategic 
Posture of the United States, the so-called Perry-Schlesinger 
Commission.
    As far as missile defense is concerned, that was the first 
area of defense technology I ever worked in, assessing the 
possibility that lasers or neutral particle beams could 
intercept ascending ballistic missiles from space. I've written 
and edited two technical manuals on missile defense and for the 
last 10 years I've been a member of the Missile Defense 
Agency's (MDA) White Team.
    If confirmed, I will use this background to inform and 
implement the Nation's policies on these important programs in 
consultation with this committee.
    In sum, Mr. Chairman and members, I believe I have 
experience and demonstrated commitment relevant to each of the 
several dimensions of the important job for which you are 
considering me. But even more, I have a strong desire to help 
President Obama, Secretary Gates, and Congress put DOD on a 
solid strategic, programmatic, and budgetary path, where our 
troops and the taxpayer expect it.
    I look forward to your questions.
    Chairman Levin. Thank you, Dr. Carter.
    Now, Senator Reed, we'll call on you to introduce Dr. 
Miller.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM THE STATE OF 
                          RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman, Senator 
McCain, and my colleagues. I'm delighted to be able to 
introduce Dr. James Miller, the President's nominee for Deputy 
Under Secretary of Defense for Policy. Dr. Miller has a 
distinguished academic career, a B.A. at Stanford and a 
master's and doctorate in public policy from the Kennedy School 
of Government at Harvard University. He has served on the Hill 
as a staff member for the Armed Services Committee in the House 
of Representatives from 1988 to 1992. He served in the Pentagon 
as Deputy Assistant Secretary of Defense for Requirements, 
Plans, and Counterproliferation Policy. He has advised the 
Defense Science Board. He's been recognized for his service.
    He brings to this task both great academic preparation and 
great practical experience, both in DOD and here on Capitol 
Hill. He has been working for the last several years, not only 
with the Center for Strategic and International Studies, but 
also for the Center for New American Security. He's been 
thoughtfully pursuing the whole range of policy issues which 
will confront both himself and Secretary Flournoy. He has the 
experience, the qualifications, and the character to do a 
remarkable job.
    I also want to recognize the fact that he is supported by 
an extraordinarily strong and decent family. His wife Adele is 
here. He has four of his five children here: Zoe, Colin, Lucas, 
and Adrienne. The fifth daughter, Allison, is at Pomona 
College, I guess watching this on some type of webcast, I'm 
told. His mother is here, Doris Miller; his sister Amy 
Lockhart; his nephew James Leipshur; and a special family 
friend, Brooks Hoffman. So I think if it were a simple show of 
hands, he'd be confirmed.
    I am delighted to be here and I want to thank you, Mr. 
Chairman and Senator McCain, for graciously allowing me to 
introduce the nominee. Thank you.
    Chairman Levin. I know how much Dr. Miller appreciates your 
introduction, and we do too. I'm sure we'll now call on him to 
live up to that introduction. Dr. Miller.

STATEMENT OF JAMES N. MILLER, JR., PH.D., NOMINEE TO BE DEPUTY 
             UNDER SECRETARY OF DEFENSE FOR POLICY

    Dr. Miller. Thank you, Mr. Chairman, Senator McCain, and 
members of the committee. I'm very grateful to Senator Reed for 
his kind introduction and for his strong leadership on national 
security over the years. I do want to also thank members of my 
family whom he introduced for being here and for their love and 
support.
    It is a great honor to be here before you today as 
President Obama's nominee for Deputy Under Secretary of Defense 
for Policy. I want to thank President Obama for nominating me 
and I want to thank Secretary Gates, Deputy Secretary Lynn, and 
Under Secretary Flournoy for their support.
    As the chairman noted, with over 200,000 soldiers, sailors, 
airmen, and marines deployed in harm's way in Afghanistan and 
Iraq and more around the world, it is a critical time for the 
country. Even as our military strives to succeed in current 
operations, it must also prepare for a wide spectrum of 
possible conflicts overseas, while coping with challenges in 
cyber space and outer space, and at the same time preparing to 
support the defense of our homeland.
    Secretary Gates has often talked about the need for a 
strategy that balances between the many competing demands on 
our military. If confirmed, I look forward to assisting in 
developing and refining such a strategy and in applying it in 
support of sound policy decisions that strengthen our military 
and that protect our Nation. If confirmed, I expect to spend 
much of my first year on the QDR and on congressionally-
mandated reviews on nuclear posture, missile defense, and space 
policy, among others.
    I believe that my background in government, the private 
sector, academia, and as director of studies at a think tank, 
as Senator Reed referred to, as well as time I have spent 
advising the Department in other capacities, has prepared me 
well for these major reviews and for the myriad other issues 
that would arise during my tenure.
    If confirmed, an important part of my job would also be 
assisting the Under Secretary in managing and leading the 
policy organization as a whole and helping to improve its 
effectiveness and its capacity to cope with the very complex 
strategic environment. I believe that my experience over the 
past 2 decades plus in the Pentagon and in both the private and 
nonprofit sectors provides a solid foundation for leading and 
managing in OSD Policy.
    I started my professional career over 20 years ago working 
for Les Aspin as a staffer on the House Armed Services 
Committee and had the great honor to serve during the Clinton 
administration as the Deputy Assistant Secretary of Defense. If 
confirmed, I will be humbled by the privilege to serve my 
country again, this time during a time of war.
    Thank you, Mr. Chairman, Senator McCain, and members of the 
committee. I look forward to any questions.
    Chairman Levin. Thank you, Dr. Miller.
    Now Ambassador Vershbow.

    STATEMENT OF HON. ALEXANDER D. VERSHBOW, NOMINEE TO BE 
   ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY 
                            AFFAIRS

    Ambassador Vershbow. Thank you, Mr. Chairman, Senator 
McCain, and members of the committee. It's an honor for me to 
appear before this committee as President Obama's nominee for 
the position of Assistant Secretary of Defense for 
International Security Affairs. I'm very grateful to the 
President, Secretary of Defense Robert Gates, and Under 
Secretary of Defense for Policy Michele Flournoy for supporting 
my candidacy for this important position.
    I'm very pleased that my wife Lisa, who's been my partner 
during our 32-year journey in the foreign service, is here 
today. Unfortunately, our two grown sons, Benjamin and Gregory, 
weren't able to travel from New York and Boston to attend this 
hearing, but some close friends are here with their kids to 
represent ours.
    If confirmed for this position, I look forward to working 
with this committee and with other Members of Congress to shape 
a bipartisan policy toward the many national security 
challenges that confront our Nation, our allies, and our 
friends, and to seize the many opportunities that exist to 
resolve conflicts and establish a more peaceful world.
    The portfolio of the Assistant Secretary for International 
Security Affairs is a daunting one as it encompasses defense 
relations with the countries and international organizations of 
Europe, including NATO, the Middle East, and Africa. If I'm 
confirmed, among the many issues on which I'll advise the 
Secretary and Under Secretary, I see a number of especially 
urgent priorities:

          Implementing the President's strategy to end the war 
        in Iraq, draw down our forces, and develop a normal 
        long-term security relationship with a sovereign, 
        democratic Iraq;
          Combatting terrorism, preventing weapons of mass 
        destruction (WMD) proliferation, and strengthening 
        security and stability across the Middle East;
          Transforming NATO to meet the challenges of the 21st 
        century, while ensuring the success of the alliance's 
        current International Security Assistance Force (ISAF) 
        mission in Afghanistan;
          Promoting a more cooperative security relationship 
        with Russia in areas of common interest, while also 
        strengthening the security and independence of other 
        European partners; and
          Developing the role of our new Africa Command 
        (AFRICOM) in helping build the capacity of African 
        nations and organizations to address security 
        challenges on the continent.

    I believe that my 32 years of experience in the foreign 
service equip me to deal with these and the many other security 
issues that are among the responsibilities of the Assistant 
Secretary of Defense for International Security Affairs. 
Throughout my State Department career I have worked very 
closely with DOD in shaping and implementing U.S. policy for 
the former Soviet Union and NATO, in contributing to U.S. 
efforts on nonproliferation and counterterrorism, and in 
managing a wide range of international conflicts and crises.
    Over the years I've had the privilege of working closely 
with the U.S. military in U.S.-Soviet arms negotiations, in two 
tours of duty at NATO when the alliance acted to end the 
conflicts in former Yugoslavia, and most recently in keeping 
the peace on the Korean Peninsula. I've come to respect the 
courage, vision, and dedication of our Armed Forces and I've 
become a true believer in the importance of close civil-
military coordination in meeting today's threats. Indeed, I 
think our success in Iraq and Afghanistan depends critically on 
our ability to craft a comprehensive strategy that integrates 
all the tools of national power, military and civilian, in 
support of our objectives.
    If confirmed, I will strive to embody the spirit of 
Defense-State cooperation that the President and Secretary 
Gates have called for.
    Once again, Mr. Chairman and distinguished members of this 
committee, I am honored to appear before you today. I look 
forward to hearing your views and ideas, both today and in the 
future, and I would be pleased to answer your questions. Thank 
you.
    Chairman Levin. Thank you very much, Ambassador.
    Let me now ask you all the standard questions. Have you 
adhered to applicable laws and regulations governing conflicts 
of interest?
    Dr. Carter. Yes.
    Dr. Miller. Yes.
    Ambassador Vershbow. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Miller. No.
    Dr. Carter. No.
    Ambassador Vershbow. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Ambassador Vershbow. Yes.
    Dr. Carter. Yes.
    Dr. Miller. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Miller. Yes.
    Ambassador Vershbow. Yes.
    Dr. Carter. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Ambassador Vershbow. Yes.
    Dr. Carter. Yes.
    Dr. Miller. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Dr. Carter. Yes.
    Dr. Miller. Yes.
    Ambassador Vershbow. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Ambassador Vershbow. Yes.
    Dr. Miller. Yes.
    Dr. Carter. Yes.
    Chairman Levin. Thank you.
    We'll have an 8-minute round.
    First for you, Dr. Carter. This year John Young, who's the 
current Under Secretary of Defense for AT&L, wrote a memo in 
which he stated that many of the problems we've encountered in 
the acquisition of major weapons systems are attributable to 
programs that have a poor foundation at milestone B, which is 
the starting point for major development and manufacturing 
design.
    He said that: ``Fundamentally, these programs move past 
that milestone with inadequate foundations built upon 
artificially low cost estimates, optimistic schedules and 
assumptions, immature design or technology, fluid requirements, 
and other issues.''
    Now, as you've mentioned in your opening comments and as 
you're aware of, Senator McCain and I have introduced a bill, 
S. 454, that's designed to help put MDAPs on a sound footing 
from the outset by addressing program shortcomings in the early 
phases, particularly of the acquisition process. Dr. Carter, 
you've already commented on this, but generally would you agree 
with John Young's assessment that many of our acquisition 
problems arise out of programs that are built on unreasonable 
cost and schedule estimates, unrealistic performance 
expectations, and immature technologies?
    Dr. Carter. I do, Mr. Chairman.
    Chairman Levin. If you are confirmed, will you work with us 
to enact legislation which addresses those problems?
    Dr. Carter. Absolutely.
    Chairman Levin. By the way, we are going to have a markup 
on that bill next Thursday morning.
    You've worked long and hard in the missile defense area, 
and one of the issues which has arisen is whether or not we 
should have exempted or should continue to exempt missile 
defense programs from many of the most basic requirements of 
the DOD acquisition system. Until now, missile defense programs 
are not considered to be acquisition programs and therefore 
they're not required to have requirements validated by the 
Joint Requirements Oversight Council. They're not required to 
undergo analyses of alternatives and business case analyses; 
they're not required to obtain independent certification of 
technological maturity; they're not required to receive 
milestone approval from AT&L; they're not required to have 
formal baselines for system cost, schedule, and performance; 
and they're not required to track and report on deviations in 
planned acquisition costs and program schedules. They're also 
not required to develop comprehensive test plans leading up to 
operational test and evaluation.
    Do you believe, Dr. Carter, that the MDA programs should be 
subject to cost and schedule baselines against which 
performance can be measured?
    Dr. Carter. I do.
    Chairman Levin. Do you believe that the principle of fly-
before-you-buy should apply to missile defense programs as it 
is to other defense acquisition programs? In other words, 
should missile defense programs be subject to operationally 
realistic testing before they're fielded?
    Dr. Carter. I think missile defense, like other programs, 
should be subject to such testing, yes.
    Chairman Levin. Will you, if confirmed, review the current 
Director of Operational Test and Evaluation reports on missile 
defense testing, including classified portions, and inform the 
committee of your views of any concerns and your assessment, 
including any corrective steps that you feel are necessary to 
ensure that our ground-based missile defense program is 
operationally effective, suitable, and survivable?
    Dr. Carter. Absolutely, I will.
    Chairman Levin. This question will go to any or all of you. 
Throughout the Iraq war we've used private security contractors 
to perform a wide variety of security functions that require 
the use of deadly force in a hostile environment. To some 
extent this was done out of necessity because we didn't have 
sufficient troops to provide needed security. However, the 
extensive use of private security contractors in Iraq resulted 
in some abuses, including the September 2000 shooting incident 
in Baghdad.
    Would you agree that DOD needs to undertake a comprehensive 
review of whether, and to what extent, it is appropriate for 
contractors to engage in functions that require them to make 
discretionary decisions about the use of deadly force outside 
of the military chain of command and on a routine basis? So 
first, do we need to undertake that comprehensive review? Let 
me call first on Dr. Miller, let me ask you.
    Dr. Miller. Yes, Mr. Chairman, I believe we do.
    Chairman Levin. Okay. Dr. Carter?
    Dr. Carter. I would agree with that, absolutely.
    Chairman Levin. Ambassador?
    Ambassador Vershbow. Yes, I agree as well, Senator.
    Chairman Levin. This is for you, Dr. Carter, going back to 
the acquisition bill that we've introduced. One of the 
provisions in that bill is the provision that relates to 
putting some teeth in the Nunn-McCurdy statute, which already 
exists. We would establish a presumption that a program that 
exceeds its critical cost threshold would be terminated unless 
it can be justified from the ground up.
    In your response to one of our APQs, you stated that you 
believe that the current statutory provision provides the 
authorities that are needed and that you do not see the need 
for any changes at this time. Now, on this question, this is 
what GAO had to say earlier this month about this issue. DOD's 
tendency to initiate programs with unrealistic cost estimates 
based on a lack of knowledge and overly optimistic assumptions. 
This is GAO speaking--``reinforced by an acquisition 
environment in which there are few ramifications for cost 
growth and delays. Only in very rare instances have programs 
been terminated for poor performance. When the Department 
consistently allows unsound, unexecutable programs to begin 
with few negative ramifications from poor outcomes, 
accountability suffers.''
    According to GAO, tougher requirements for programs that 
exceed Nunn-McCurdy thresholds could force programs ``to be 
more candid and upfront about potential costs, risks, and 
funding needs, increasing the likelihood of successful program 
outcomes.''
    Would you agree with the GAO assessment?
    Dr. Carter. I would, and I'd add a little bit to that and 
say that staring a Nunn-McCurdy breach in the face is and ought 
to be a disciplining factor, for any program manager.
    What I meant in the APQ was that as I understand it the 
Department now has the authority to terminate a program if it 
makes a Nunn-McCurdy breach. Also it's true, as I understand 
it, that programs can breach the thresholds for reasons other 
than poor management. That's not to say that in many cases poor 
management isn't the reason, but sometimes it's for other 
reasons that they breach the threshold. So some flexibility in 
how the Department responds to the fact of a breach is 
appropriate.
    But, that said, the terror factor, I can tell from program 
managers I know, about facing a Nunn-McCurdy breach is there 
and is real and is a healthy factor.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Ambassador Vershbow, you have extensive experience in Korea 
and relations with North Korea. What do you think the 
implications are and what it means that the North Koreans have 
announced that they're going to have another ``missile test''?
    Ambassador Vershbow. Senator, although I'm not going to be 
dealing with Korea if confirmed for my proposed position, I 
have been working that very----
    Senator McCain. I would think that North Korean activity 
may pose a threat to our security in the Pacific and in the 
region.
    Ambassador Vershbow. Indeed, and it's something that we 
need to ensure that our allies, even far away from Korea, 
recognize. The proliferation of ballistic missile technology 
and nuclear weapon technology from North Korea is a global 
threat.
    I think that their announced intentions to launch a 
ballistic missile, ostensibly to launch a satellite, which we 
can't yet confirm, is an effort to escalate the pressure on the 
United States and the international community to legitimize 
North Korea's possession of these kinds of technologies and 
their nuclear weapons programs. At the same time, it is clearly 
going to be inconsistent with the two United Nations Security 
Council resolutions that were adopted in 2006. So it's clearly 
going to be a serious provocation and, as I think Secretary of 
State Hillary Clinton said just yesterday, ``there will be 
consequences.'' I'm not yet in my position, so I can't say what 
those consequences will be, but it will be a very serious act.
    Senator McCain. Thank you.
    Dr. Carter, your experience in weapons acquisition is?
    Dr. Carter. Senator, I've been working for 25 years in and 
with DOD, the defense industry, and defense laboratories on 
defense programs. That's where I began my career. That's the 
background I come from in physics. I know that we have 
interacted some over the years on policy questions as well, but 
most of my career in this field has been devoted to and 
involved in programs and defense technology.
    Senator McCain. Dr. Carter, the Defense Business Board has 
warned that DOD's procurement plan is ``unsustainable,'' and 
with respect to the Department's budget decisions that 
``business as usual is no longer an option.'' The board found 
that DOD can only meet its priorities if it makes hard budget 
decisions on its largest and costliest acquisition programs.
    Do you agree with that viewpoint as expressed by the 
Defense Business Board?
    Dr. Carter. I do.
    Senator McCain. Can you give the committee some insight 
into how you intend to address unfunded acquisition commitments 
that are currently in the DOD's procurement plan?
    Dr. Carter. Thank you for that question, because I rather 
suspect those unfunded commitments are large, and when I assume 
this job, if I assume this job, one of the first things I'm 
going to want to do is look program by program through the 
pipeline of programs that we have and try to get in front of 
the process that we've experienced over the last few years of 
discovering, oops, all of a sudden midway through a program, 
how much trouble it's in.
    Senator Levin quoted what we know now about MDAPs and the 
cost overruns in the MDAPs. I'm not sure that's the end of the 
story, and one of the things I would do, if confirmed, is see 
whether there isn't more to that iceberg.
    Senator McCain. Do you believe we should have a policy of 
no cost-plus contracts?
    Dr. Carter. Ideally, one would like to get into a situation 
where by the time one gets to the procurement phase of a 
program the program's parameters, technical and production, 
manufacturing, engineering, and so forth, are well enough known 
that one can have a competition of that kind. Earlier in a 
program, or in a program that is inherently riskier 
technologically, it may just not be possible to anticipate 
exactly what it's going to cost until one gets into it.
    So I would say in answer to your question that in earlier 
phases of a program that kind of contracting might not work. In 
later phases it should be our aspiration to do that kind of 
contracting.
    Senator McCain. You would agree there's been a dramatic 
consolidation of major defense contractors and corporations 
since your early days in the Pentagon?
    Dr. Carter. Absolutely. In fact, I was at the so-called 
``last supper,'' the famous last supper that Les Aspin and 
Secretary Bill Perry, John Deutch, and I attended along with 
the defense industry leaders of that time. There were, I 
suppose, 16 of them around the table. It's Norm Augustine who's 
called it the ``last supper,'' because he famously turned to 
two industry leaders to his left and his right at that time and 
said: ``Next year one of the two of you won't be here.'' We 
went down from 16 to 5.
    Senator McCain. The point is, with this consolidation it's 
hard to have true competition.
    Dr. Carter. Exactly right.
    Senator McCain. So the conundrum is that you have basically 
an uncompetitive or very dramatically changed competitive 
environment than we had some years ago. The result has been, at 
least evidence might suggest, that with the lack of 
competition, combined with a cost-plus contract environment, 
the initial cost proposals made are usually far less than even 
those who are competing for the contract believe. Is there any 
validity to that suspicion?
    Dr. Carter. I think there is validity to the suspicion that 
low-balling goes on in programs. It's also true that there are 
fewer primes now. I do think that competition is the great 
discipliner, and it's still possible to have competition even 
in the defense industry that we have. The bill that the 
chairman and you have introduced makes note of that and 
suggests some ways that can be done.
    For example, even if competition at the production phase is 
not possible, competition at earlier phases in the programs 
might still be possible. You can have competition below the 
prime levels, at the levels of the subcontractors who are 
building the subsystems. So I think there are various ways that 
we can keep competition alive even in the defense system and 
it's necessary to do that.
    Senator McCain. You really believe that?
    Dr. Carter. I think it's not something that can be done 
across the board, but I think it's something that can be done 
very substantially, and it certainly would be my aspiration, if 
confirmed, to get as much competition as we possibly can.
    Senator McCain. I appreciate your support for the 
legislation that Chairman Levin introduced. Updating of the 
Nunn-McCurdy law is one of the real intents of this. But I'm 
not positive we're really getting at the magnitude of the 
problem. Do you share that concern? Including a change in 
attitude inside the Pentagon?
    Dr. Carter. I think the bill's provisions get at the heart 
of the matter as regards programs in their early phases, which 
as I understand it, is its intent. Now, if I'm confirmed, 
that's not going to be my only problem. There are all these 
programs that are well past that stage. The mistakes were made, 
whatever they were, back in the past and you can't start all 
over again.
    So you have the problem that we are where we are, with lots 
of problems, programs, that had your provisions been in place 
when they were born wouldn't be where they are now. But they 
are where they are now. So that's a separate problem, which I 
understand the bill wasn't intended to address.
    But as regards programs in their early phases, it seems to 
me it touched on all of the things that we now know are 
problems in early phases of programs and if addressed would 
lead to results later in phases of the program that would be 
very different from the ones we're facing today.
    Senator McCain. I'm very pleased to join Chairman Levin on 
this effort. But I also think that unfortunately, as you say, 
there are some, as I mentioned in my opening comments, such as 
FCS, JSF, and others that are already huge, big ticket items. I 
just don't see the funding being there to continue these 
programs that have already been initiated.
    I'm sure you share that view and I look forward to working 
with you on it. I thank you, Chairman Levin.
    Chairman Levin. Thank you so much, Senator McCain.
    Let me first thank Senator Reed for taking the gavel for an 
hour or so, and call on Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I have a few questions. Dr. Carter, I'm going to follow up 
on Senator McCain's comments. The issue of acquisition is one 
of those complex problems, especially when you're developing 
new technology. I come from a little different perspective, I 
think, on this, and that is in the first phase--and I think you 
said this--in the technology development, because we're really 
testing technology which is unknown in a lot of cases. So the 
costing of it is going to be always very difficult.
    If you asked Bill Gates in the early days of Microsoft what 
he thought it would cost to develop, or you go to Google or you 
go to any of the technology companies, they would tell you one 
thing and what really happened was much different, because 
you're dealing with the unknown.
    I think then as you move down the path, how do you then, 
once the technology is developed, ensure that the 
competitiveness, as you describe, continues to stay in play? 
But do you subscribe to that thought, that the technology part 
is going to be always very difficult? Maybe I'm missing 
something, but every time I talk to private sector companies in 
a variety of technology developments it's always very 
difficult.
    Am I missing the boat there?
    Dr. Carter. No, Senator, I wouldn't say you're missing the 
boat at all. It gets back to something that Chairman Levin 
raised earlier. I'm sorry, Senator McCain did. In an early 
stage of a program, if it's an ambitious program--and we want 
to have technologically ambitious programs--it's fair to not 
exactly know where you're going and what you're getting into. 
That's the nature of the beast.
    So fair enough, and that's the point about cost-plus 
contracts and those phases. But the ambition of the program 
ought to be to get itself to a point where before it goes into 
production it's resolved all those technology issues. So you 
need to get yourself to a point where you do understand the 
technology you're dealing with, what it's going to cost, how 
it'll perform, and what schedule you can produce it.
    That's the point at which a different kind of contract 
instrument might become appropriate. I should also note that in 
the legislation that was referred to earlier, one of its 
provisions is to strengthen the Department's discipline in 
making sure that before it passes into those later phases it 
really has done the job of understanding the technology.
    But you're absolutely right. I'm a scientist and if you 
knew where you were going that wouldn't be science.
    Senator Begich. It wouldn't be science. You'd know the 
answer.
    Again I just wanted to follow up, and then I have a couple 
more questions. But I'm a former mayor. I'm a mayor that 
happens to be a Senator. As a mayor, you always have to think 
7, 10 steps down the road. We continually use technology to 
develop those early stages, but once we've figured out what 
we're going to do and how we're going to do it, even with the 
sole contractor, you could be very competitive by putting in 
systems that reward price control. I would hope that, in your 
new position, there would be an opportunity, that there's a 
reward opportunity for price control, because sometimes in a 
noncompetitive environment that the almighty dollar becomes 
very competitive to achieve as much as they can.
    So let me ask you--I'm going to read a comment in your 1984 
book. It seems like every week we talk about missile defense 
and as a Senator from Alaska, I have a great interest in this 
issue. In your book titled, ``Ballistic Missile Defense'' 
(BMD), you stated: ``Ideally, an actual BMD deployment in the 
United States would be preceded by three stages of analysis: a 
study of the underlying technology; an assessment of the 
technology effectiveness when embodied in a specific system, 
assigned a specific defense goal; and a judgment of the 
desirability or need of the defense.''
    Twenty-five years later after you've written that book, do 
you think we have done that with the missile defense system, 
those three stages?
    Dr. Carter. Missile defense has come a long way since then. 
But I would say that those three steps applied to missile 
defense today are as appropriate as they were then. In fact, 
they really apply to any program, and missile defense, as was 
mentioned earlier, needs to be looked at in the way that other 
programs are.
    The only thing I'll say is at that time the mission was so 
different. The mission was to defend the whole country, as 
President Reagan's aspiration was to defend the whole country 
against 3,000 equivalent megatons of Soviet throw weight. So 
that was a pretty daunting mission. Today we're looking at a 
mission that is much more modest than that, defending ourselves 
against North Korean or Iranian missile threats which are far 
less formidable than was the Soviet Union's, and therefore the 
job's easier, in addition to us having behind us 25 years of 
technology development.
    Senator Begich. I think you answered--my second question 
was going to be that, in regards to other major systems, that 
those three stages should also be utilized?
    Dr. Carter. Absolutely.
    Senator Begich. Just to reiterate that.
    Dr. Carter. Yes, Senator.
    Senator Begich. Another quick question, if I can. I guess 
it again goes to the issue--and I think you hit it and maybe we 
can elaborate a little bit on missile defense and how you see 
it as a shield and how it fits into our overall defense policy 
for homeland as well as deployed forces and others, as you 
mentioned, North Korea and Iran. Can you elaborate a little bit 
more on that, how you see it in the big picture?
    Dr. Carter. I can. I presume that is going to be addressed 
by the Department in a systematic way in its QDR that Dr. 
Miller will be conducting. But just to anticipate some aspects 
of it, today, unlike in the time when we were facing the Soviet 
missile threat, we are in the protection against nuclear attack 
sense as concerned about non-state actors and rogue state 
actors as we are concerned about established nuclear powers, as 
was the case with the former Soviet Union.
    There are a lot of ways that they might introduce nuclear 
weapons into our country, of which a ballistic missile is only 
one. In fact, terrorists are unlikely to use that method. So I 
would say that we have to have walls as well as a roof to our 
defense. I've been involved in many programs aimed at building 
those walls as well. I think there's a balance question.
    Senator Begich. So it's a piece of the equation, what level 
is the question.
    Dr. Carter. Certainly missile defense fits into that 
portfolio, and then we have to balance that mission area, which 
is defending ourselves against nuclear attack, against all the 
other mission areas we have, like Iraq and Afghanistan and so 
forth. I understand that's a complicated cocktail or portfolio, 
and Dr. Miller's going to sort it all out if he's confirmed.
    Senator Begich. You've led to my question for Dr. Miller, 
since he's been so quiet there, I didn't want to leave him 
alone here. But you gave him the lead-in to a question you must 
have read here that I have.
    Dr. Miller, you're going to be doing the QDR and the NPR. 
What are your thoughts on the value of the QDR and the NPR for 
defense? But also, add a little missile defense to that on top 
of it. You can thank Dr. Carter for setting that up for me. 
Thank you, Dr. Carter.
    Dr. Miller. Thank you, Senator. Thank you, Dr. Carter. 
[Laughter.]
    Dr. Miller. Senator, the QDR has been mandated as a key 
part of the Department's planning and preparation. Several have 
been conducted, going back to the early 2000s and a little bit 
before, in fact into the 1990s. The NPR has been similarly 
conducted several times. The Missile Defense Review and the 
Space Policy Review will be new this time around and will need 
to be integrated into that, into that broader set of issues.
    Sir, my view is that it makes terrific sense for, at least 
every 4 years, to take a fresh look from starting principles, 
from strategy to broad policies, and then looking at the full 
range of programs and other activities in the Department, the 
organization of the Department as well, which is a key function 
of the QDR, and applying that across the board to the nuclear 
area, to missile defense, and so forth.
    Senator Begich. Very good. My time is up. Mr. Ambassador, I 
did have questions. We'll submit those in writing to you, and I 
thank you all very much for being here. I have to go to another 
committee. But thank you for those answers.
    Senator Reed [presiding]. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I'm in the same 
situation that Senator Begich is, that we have two simultaneous 
hearings, fortunately in the same building here.
    There are two oversights in the introduction of both Dr. 
Miller and Dr. Carter that I'd like to correct for the record 
now. One is that, in the case of Dr. Carter, that Bill Perry 
was the best man at his wedding. The other was, Dr. Miller, 
that during your tenure as professor at Duke University, two of 
my kids were your students. You didn't know that, did you?
    Let me ask a question of each one of you, if you don't mind 
responding. It's a three-part question. About a year ago there 
was a communique from NATO leaders that stated: ``We therefore 
recognize the substantial contribution to the protection of 
allies from long-range ballistic missiles to be provided by the 
planned deployment of the European-based United States missile 
defense assets.''
    Of course, we've been busy putting that together. However, 
there is uncertainty now, and I've seen several things that 
have come from Poland. Right now they're in a holding pattern, 
not sure what to do. However, Foreign Minister Sikorski said: 
``We hope we don't regret our trust in the United States.''
    Now, the three-part question to each one of you. First, 
what in your opinion is the importance of the European site to 
the United States and NATO? Second, what impact would it have 
if we discontinue this program? Third, what impact would there 
be if there is a delay in this program? You can answer in any 
order.
    Dr. Carter. I'll take a shot first, Jim. First I'll try to 
answer the question from the perspective of the job for which 
you're considering me, which is the acquisition perspective, if 
I may, and then Dr. Miller can answer it from the policy 
perspective.
    From the acquisition perspective, the importance of the 
site is that it is intended principally to protect the 
continental United States from a ballistic missile attack of 
long range from Iran. It would also have some capability in the 
current configuration to defend parts of Western Europe against 
intermediate range. So the importance of the site is that it is 
between Iran and us, and that's why it was selected.
    The second and third parts had to do with the impact of 
delay, and Jim can address the geopolitical questions of the 
impact of delay. From a purely technical point of view, when 
one is considering deployment of a missile defense, there's 
always a tradeoff. You look at the threat and you don't want to 
deploy too late after the threat develops. On the other hand, 
the longer you wait the better the system is that you can 
deploy.
    Now, we find ourselves with respect to Iran in a situation 
where they're not there yet in terms of an intercontinental 
ballistic missile threat. From that point of view, just purely 
speaking technically, one wouldn't have to have a defense in 
the field until the threat was in the field. With every passing 
year we'll get a little better. So the longer we wait, the 
better the system. But if you wait too long, you don't have the 
system in the field by the time the threat develops.
    I would say that's the tradeoff purely from a program point 
of view in terms of the timing. So the need is Iran and the 
question of timing becomes a tradeoff----
    Senator Inhofe. Are you saying then that you don't think we 
should proceed with that development and give a communication 
to the Governments of Poland and the Czech Republic?
    Dr. Carter. No, I'm not saying that. I'm just speaking from 
the acquisition point of view we have to be ready while the 
threat isn't there yet. We have to be there before the threat 
is. That argues for early deployment. The longer we wait, the 
better the system we could have, which would argue for being 
able to wait if you chose to wait.
    I realize there are many factors other than these only that 
go into the question of whether you deploy now or don't deploy. 
But purely from a technical point of view, that would be the 
tradeoff.
    Senator Inhofe. Dr. Miller?
    Dr. Miller. Senator, the question of the use of the system, 
I'd just say that I concur with Dr. Carter's assessment of the 
purpose with respect to defending the United States and a 
significant portion of Europe.
    The impact of the delay, let me say two things. The first 
is that President Obama has reportedly suggested that if the 
Iranians were to delay or in fact verifiably stop their efforts 
at pursuing nuclear weapons then that would change the 
calculation, and then that is something that should be 
considered as a possible opportunity to improve the technology 
of the system and to consider its future.
    The second thing I say about delay is that one of the 
issues associated with the system, as you suggested, is its 
impact on our relations with the Czech Republic, Poland in 
particular, and with the rest of NATO, and the perceptions of 
Russia of that and the degree to which the United States 
continues to stand by its allies. Clearly that is an essential 
element of what the United States should consider in going 
forward and in the timing of the system.
    Senator Inhofe. I don't want to go any further with this. 
I'm using up all my time and I didn't want to do that. But I 
can cite a lot of examples where the National Intelligence 
Estimate has been wrong. I agree, Dr. Carter, most people 
believe that capability is not there, but the consequences of 
being wrong are just unbelievable, and I think we need to be 
thinking in those terms. I'd like to be able to carry this on.
    I have two other areas real quickly. I've been concerned 
about all of our aging everything. I'm talking about our Navy 
fleet, our KC-135s, our tanker capability. Everything that we 
have out there is aging. I'd have to say--and this is probably 
for you, Dr. Carter--it doesn't make sense to continue to spend 
money in maintaining these systems. There are several studies, 
business plan studies, that are on record right now, that I'm 
sure you've looked at, and I'd ask you to look a little bit 
deeper, as to the cost of maintaining what we have as opposed 
to getting in new systems. I think of the KC-X as one example, 
and others.
    Do you have any thoughts about our aging fleets and how you 
want to approach them? That would include ground equipment, 
air, everything else that we have.
    Dr. Carter. Thank you. My only thought is that I share your 
concern. With every passing year, everything gets a year older. 
If confirmed, I know that that's one of the first things that I 
have to do, look at these----
    Senator Inhofe. Let's do that. Then for the record, I would 
like to get from you some of these studies that have been made, 
because one of the problems, of course, is our accounting 
system that we have here. You can't do things that you would do 
if you were in the private sector in terms of taking care of 
these problems, because that's not the way the system works.
    Dr. Carter. Yes, sir.
    [The information referred to follows:]

    First, the Department of Defense considers business cases to exist 
in several documents, usually including the Analysis of Alternatives 
(AoA), Acquisition Strategy, Independent Cost Estimates, funding 
profiles, and Technology Readiness Assessments. Second, the Department 
of Defense uses such ``business cases'' to support certifications 
required by title 10, section 2366b. I have included three examples of 
business cases for the Joint High Speed Vessel (TAB A), Joint Precision 
Approach and Landing System (JPALS), and Global Combat Support System-
Army (GCSS-A).
Joint High Speed Vessel
    Business Case Analysis: The business case for the Joint High Speed 
Vessel (JHSV) is made in the following documents, which when viewed 
together support the four provisions in section 2366b that are required 
to be certified based on a business case analysis. The documents are:

        <bullet> JHSV AoA dated April 2006 (copy of executive summary 
        attached at TAB A).
        <bullet> JHSV Capability Development Document (CDD) dated 
        January 27, 2007.
        <bullet> JHSV Acquisition Strategy dated July 19, 2007, with 
        Revision 1 dated July 8, 2008.
        <bullet> JHSV Program Office Cost Estimate dated July 18, 2008.
        <bullet> JHSV Independent Cost Estimate (ICE) completed in 
        November 2008.
        <bullet> The Program Objective Memorandum 2010 Budget Estimate 
        Submission.
Joint Precision Approach and Landing System
    Business Case Analysis: The business case for the JPALS program is 
based on the following documents, which when viewed together support 
the four provisions required to be certified based on the business case 
analysis in section 2366a. The documents are:

        <bullet> Initial AoA for JPALS by the Air Force, August 1997; 
        Updated AoA validated by the Air Force Requirements for 
        Operational Capability Council on November 17, 2005 (copy of 
        executive summary attached at TAB B).
        <bullet> Evaluation of JPALS AoA (Sufficiency Review), Office 
        of the Secretary of Defense (OSD), Program Analysis and 
        Evaluation, December 19, 2007.
        <bullet> Prior to the Joint Capabilities Integration and 
        Development System Process, JPALS requirements documented in 
        the Joint Requirements Oversight Council (JROC) approved 
        Precision Approach and Landing Capability (PALC) Mission Need 
        Statement, JROCM Ser# 108-95, August 29, 1995.
        <bullet> PALC Initial Capabilities Document Ser# 717-88-07, 
        JROCM Ser# 208-05, September 19, 2005.
        <bullet> JPALS CDD validated by the JROC, JROCM Ser# 056-07, 
        March 16, 2007.
        <bullet> Service Cost Position (SCP), by Naval Air Systems 
        Command 4.2, delivered to the OSD Cost Analysis Improvement 
        Group (CAIG), February 15, 2008 (updated April 7, June 3, and 
        June 19).
        <bullet> OSD CAIG ICE, CAIG brief on April 1, 2008 (updated 
        June 17); report dated June 25, 2008.
        <bullet> Fiscal Year 2009 President's Budget (PB09)--JPALS 
        Program funding.
        <bullet> JPALS Acquisition Strategy (AS), June 2008.
        <bullet> Technology Readiness Assessment (TRA), by Director, 
        Defense Research and Engineering (DDR&E), March 13, 2008.
        <bullet> Program Support Review, by Deputy Under Secretary of 
        Defense (Acquisition, Technology and Logistics (Acquisition and 
        Technology)/System & Software Engineering, January 10-11, 2008; 
        Briefing report dated April 7, 2008.
Global Combat Support System-Army
    Business Case Analysis: The business case for the GCSS-A program is 
made in the following documents, which when viewed together support the 
four provisions required to be certified based on the business case 
analysis in section 2366a. The documents are:

        <bullet> GCSS-A AoA validated October 24, 2005; revalidated May 
        25, 2007 (copy of executive summary attached at TAB C).
        <bullet> GCSS-A CDD, dated June 13, 2006.
        <bullet> PB09, February 4, 2008.
        <bullet> GCSS-A AS Army Acquisition Executive signature dated 
        April 2, 2008, pending final signature by the Missile Defense 
        Agency.
        <bullet> GCSS-A Economic Analysis and SCP from the Assistant 
        Secretary of the Army (Acquisition, Logistics & Technology) 
        dated April 28, 2008.
        <bullet> GCSS-A CAIG ICE dated May 17, 2008.

    [Tabs A, B, and C are for official use only and are retained in the 
committee files.]

    Senator Inhofe. The last thing I'd like to ask you, Dr. 
Carter, is on the question of the shelf life of some of our 
nuclear weapons. You and I talked about that in my office. Do 
you think that we can continue to have something that we 
believe will work without conducting underground testing? I 
think also about the credibility that we have in our other 
countries, as to whether they look at us and some of the stuff 
that we have there in our nuclear weaponry, and can we keep 
that credibility without underground testing? Real quickly, can 
I have your thoughts on that?
    Dr. Carter. A safe and reliable stockpile is critical. I 
understand that's partly the responsibility of the person in 
this job. The national laboratory directors, who understand the 
physics of these weapons, are required every year to give an 
answer to your question about whether the existing stockpile is 
safe and reliable in the absence of underground testing.
    There is a program, the Stockpile Stewardship Program, 
that's been going on for quite a long time. My understanding--
I'll learn more if and when I get in this job--is that their 
judgment is that the Stockpile Stewardship Program has allowed 
them so far to give an answer yes to that question. They can't 
see forever into the future, but for now their answer would be 
yes.
    Senator Inhofe. You would follow their guidance, then?
    Dr. Carter. Yes. In fact, I believe it's required under the 
law that we follow their guidance.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Inhofe.
    Based on the order of arrival, I will now ask my questions.
    I had the privilege of introducing Dr. Miller and his 
family and I want to welcome Ambassador Vershbow, but I want to 
say a particular word about Dr. Carter. I've had the privilege 
of knowing Ash for many years. He has an extraordinary 
intellectual range, from theoretical physics to medieval 
history, but is also terribly pragmatic, practical, and has the 
common sense that is necessary.
    I think one of the things that, Ash, commends you to the 
job is not only do you have great technical knowledge, but you 
also understand the institutional and cultural politics and 
policies that will make your job--make your tenure, I think, 
very successful, so welcome.
    Dr. Miller, one of the challenges that we have and you have 
particularly is dealing with the current situation, but looking 
ahead, and looking down the road to those places where problems 
will occur in the future. One of the issues that seems to be 
universal is the lack of capacity in many places in the world 
for effective governance, for effective control. It's seldom 
the marquis issue. It's not as pressing as a crisis in Iran or 
Afghanistan, et cetera. But in the longer run it might be one 
of the most significant challenges we have.
    Could you give us your thoughts on how you and Secretary 
Flournoy are going to deal with this issue of capacity-
building, particularly in places that now seem obscure. But 
Somalia was obscure, Afghanistan was obscure, et cetera.
    Dr. Miller. Senator, thank you. Secretary Gates has noted 
in the National Defense Strategy that the prospect of 
challenges arising from states that are troubled is probably at 
least as significant a challenge for the security environment 
as the challenges that may arise from strong states.
    This has been a growing focus of DOD, first within Iraq and 
Afghanistan, and then more broadly a look at building partner 
capacity at least since the last QDR. Congress has certainly 
played an important role if you look at the authorities for the 
so-called sections 1206, 1207, 1208, that give the authority to 
provide resources through DOD in operations where there's 
counterterrorism and where the United States is involved in 
stability operations for section 1206, in moving money to the 
State Department's Office of the Coordinator for Reconstruction 
and Stabilization for section 1207, and then for the Special 
Operating Forces for section 1208.
    All those authorities are relatively new and all worth 
looking at closely in terms of how they can be tailored most 
effectively. In addition then, there is the Commander's 
Emergency Response Program funds and others. It is an area that 
as the United States draws down its forces in Iraq over the 
coming years, it's an area where I would expect the Department, 
and I would hope the Nation, to provide significant attention, 
and where building the capacity of the State Department and 
U.S. Agency for International Development and other agencies is 
a critical step in that, as is working with our partners, our 
allies, in helping these countries that are struggling, sir.
    Senator Reed. Thank you.
    Ambassador Vershbow, if I could get your response to this, 
because I think part of your duties will touch upon this, 
particularly engaging our allies in this same capacity-building 
effort?
    Ambassador Vershbow. Thank you, Senator. Yes, I agree with 
what Dr. Miller just said. It is just as important in looking 
at some of these post-conflict situations or at unstable parts 
of the world, to help on the civilian side with the capacity-
building for more effective governance. It ranges across the 
spectrum from helping with economic development, developing 
effective judicial institutions, police, rule of law.
    I think all of these things require a comprehensive effort 
by different parts of our government, and I think that the 
legislation that Dr. Miller referred to, section 1206, section 
1207 in particular, were designed well to require close State-
Defense coordination, even a dual-key approach to the 
implementation of these programs, because we're really all in 
this together.
    I think that some of the problems we had early on in Iraq 
reflected, I think, insufficient attention to these issues of 
governance. I think we've begun to work more closely with the 
Iraqis to get it right in that regard, and I think that's one 
of the reasons why the trends are more favorable in Iraq, and I 
think we now are turning our attention to Afghanistan, where 
there are similar problems of weak governance.
    So yes, Senator, you've identified a very critical problem, 
and I think my background, having been at the State Department 
and now moving over to DOD, I hope, if confirmed, will help me 
in creating this kind of integrated approach.
    Senator Reed. Let me follow up with a question about 
Afghanistan, which is the necessity of more decisive and robust 
engagement by NATO. A corollary to that would be the recent 
announcement that France is rejoining NATO. Can you comment on 
both those issues?
    Ambassador Vershbow. Yes, Senator. I think that it's been 
very helpful that NATO has stepped up to the challenge in 
Afghanistan and contributed to the ISAF coalition. We haven't 
always gotten quite as many troops as we had hoped, but I think 
one shouldn't underestimate the importance of the contributions 
that they made and the sacrifices that our allies have made. On 
a per capita basis, for example, Canada has taken more 
casualties than the United States. So I think the spirit of 
we're all in this together, shared risk, has been on display in 
Afghanistan.
    Looking ahead, it's not clear how many more troops we will 
be able to get from our allies, but I think that as we look to 
trying to do better in Afghanistan, we will be looking to our 
allies, if they can't contribute more on the military side, to 
contribute more on the civilian side, where the list of tasks 
is almost infinite as to what kind of contributions they could 
make.
    As for French reintegration, I think this is a very 
important and positive step. The French have been good allies 
even when they weren't fully integrated in the military command 
structure, contributing sizable forces in Bosnia and Kosovo, 
and they have sizable forces on the ground in Afghanistan.
    So I think bringing them fully into the military structure 
and the planning structure, which would mean that they would 
have more forces committed to NATO, assigned to NATO, will 
hopefully enhance NATO's effectiveness in the future.
    Senator Reed. Thank you.
    Dr. Carter, you have an extraordinarily difficult 
challenge, as both Senator Levin and Senator McCain outlined. 
Senator McCain particularly talked about the concentration of 
the industry, the sense that you might be outgunned. I want to 
bring that down to a very practical, operational level. Let me 
ask you the question: Are there sufficient system engineers, 
acquisition professionals, people capable to go one-on-one with 
industry, that has the capacity through their incentive 
structures and their ability to recruit to mount a significant 
number of people, experts in an area?
    Maybe the pathway to a better acquisition system is having 
on our side of the table more depth, more professional, better 
supported individuals.
    Dr. Carter. First of all, thank you for your kind words.
    Senator Reed. I was going to say that at Yale we deal with 
history and theoretical physics with the same course, but----
    Dr. Carter. Two separate things, but maybe this job is the 
perfect union.
    Senator Reed. It's the perfect--yes, alchemy, too.
    Dr. Carter. But I appreciate all you've taught me and I 
thank you for your kind words.
    Your question really goes to the heart of things. Actually, 
this committee has received some testimony in the last couple 
of weeks that I thought was excellent on this very subject of 
systems engineering and, more generally, the competence and 
size of the government workforce to manage this much money and 
programs that are this complicated.
    I do have that concern. I know that this committee has 
taken some action in that regard, and it's a subject that, if I 
am confirmed, I intend to take very seriously because, as I 
said earlier, you can have all the great paper acquisition 
system you want and if you don't have the right people to do 
it--systems engineering is a particularly important thing. A 
lot of people don't relate to systems engineering very well, 
but it's the ability to look at the whole task from early on, 
concept development and technology development, right through 
sustainment, and look at all of its aspects.
    There are organizations in the Services and OSD that do 
that, and I've been associated with some of them. For a long 
time our ballistic missile programs were managed by the 
Ballistic Missile Office out at San Bernardino, CA, which is a 
perfect example of a systems engineering organization that 
dealt with all offensive ballistic missiles end to end. It's a 
very important skill set.
    Dr. Kaminski testified on this subject a couple of weeks 
ago on the basis of a study he did for the National Academy of 
Sciences, and if I'm confirmed, you bet it's a serious concern, 
because one person isn't going to be able to do it, however 
hard I work.
    Senator Reed. Thank you very much.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, thank you as well as your families for your 
willingness to continue or come back, as the case may be, into 
public service. We appreciate that very much.
    I want to pick up, Dr. Carter, on what Senator Reed was 
talking about and what Senator McCain was talking about 
earlier. That is this issue of competition that you and I had a 
chance to visit about. As we have downsized, we do note that 
there are not only limited chances for competition, but also 
increased chances of conflict of interest. In the Levin-McCain 
bill there is a provision that would require the contract for 
the performance of systems engineering and technical assistance 
functions contain a provision prohibiting the contractor or any 
affiliate from having a direct financial interest in the 
development or construction of the weapon system or its 
components.
    At face value this provision would seem to prohibit a 
company from performing any systems engineering and technical 
assistance (SETA)-related work that you just talked about on a 
contract for which they are prime or subcontractor. Given that 
over the last several years the larger defense contractors have 
bought up many of those smaller contracts for systems 
engineering that traditionally supplied the support, this 
provision may have the effect of prohibiting much of the 
systems engineering expertise from being available at DOD.
    Now, the current provisions in the Federal Acquisition 
Regulation allow for avoidance, neutralization, or mitigation 
of significant potential conflicts of interest. At face value, 
the bill would simply require avoidance. Do you believe that 
strict avoidance is all that's necessary, or do mitigation and 
neutralization of conflicts of interest--could they be 
appropriate in some instances?
    Dr. Carter. I'm not sure I can give you a fully complete 
answer to that. That's something I'd like to get in and take a 
look at if I am confirmed. But I understand the question 
entirely. These large firms are now both making stuff and 
involving themselves in the process by which we decide as a 
government what we're going to buy and what it's going to look 
like, and that is the very clear possibility for the fact and 
at a minimum the appearance of a conflict of interest.
    It's another form of organizational conflict of interest, 
the other one being the ``make versus buy'' question in a large 
and integrated firm. I see quite clearly the potential for 
conflict there. I am also aware within companies of their 
attempts to build firewalls between the organization that's 
doing the SETA work and the organization that will do the other 
work. I think from the outside looking in, those firewalls are 
always questionable.
    But the only reason I can't give you a clear answer is that 
there is a countervailing factor, which is we do need that SETA 
work done. If, as Senator Reed said, we can't do it within the 
walls of government, then how are you going to get it done? If 
excellent SETA work can be done by those companies, one doesn't 
want to lose access to that competence.
    So somehow we have to get access to it without the conflict 
of interest, and you're asking me how to do that and I'm saying 
I don't know. I can't give you a good answer as I sit here 
today, but I know that you want and deserve a good answer, and 
that would be something I would try to give you in time if I 
were in the job.
    Senator Chambliss. As Senator Levin said, we're going to 
take up this bill it looks like next Thursday. I don't know the 
answer either. That's why I'm asking you, because we need to 
solve this, obviously, to make your job easier and make sure 
that we have the ability to inject that competition that is so 
sorely needed to do what Senator McCain suggested earlier, and 
that is try to get these costs under control.
    This train wreck that was coming 10 years ago is here with 
respect to certain systems, and we have other train wrecks down 
the road that are going to make it very difficult for you to 
operate within the budget if we don't make sure we have that 
competition there.
    If you have any thoughts on it between now and next week, I 
wish you'd let me know.
    Dr. Carter. May I add just one thing?
    Senator Chambliss. Sure.
    Dr. Carter. So as not to have nothing at all to help you, 
what the provision is, as I understand it, as drafted, is it 
requires more transparency. That certainly is necessary and 
clearly required. In addition to that, I can't say more. But to 
the extent that that's what is provided for in this draft 
legislation, I think it's absolutely appropriate.
    Senator Chambliss. Again, you and I discussed the issue of 
multi-year contracts. I'm a big fan of multi-years. I wish we 
could do more of them. What are your thoughts on multi-year 
contracts?
    Dr. Carter. I think there are, as we discussed, Senator, 
instances when multi-year contracting is appropriate and cost 
effective, and in those instances I would, if I were in this 
job, recommend that multi-year procurement be followed. I 
understand that there are other considerations in multi-year 
contracting, but where it is cost effective--and I think there 
are examples where it can be cost effective--my job would be to 
say what was cost effective.
    Senator Chambliss. We have two depots in my State. I have 
an opportunity to visit those depots regularly, at Warner 
Robbins and at Albany. Our folks do great work there, both on 
the military side and the civilian side. You're familiar with 
the 50-50 rule. You're also familiar with the fact that there's 
some discussion that's ongoing relative to changing the way 
modification work is incorporated in the 50-50.
    Assuming that this discussion does continue, I want a 
commitment from you that you will dialogue with the committee 
and particularly me about any changes that might be forthcoming 
to the 50-50 relative to that modification within our depots, 
before any changes are made.
    Dr. Carter. Absolutely, I give you that commitment.
    Senator Chambliss. Dr. Miller and Ambassador Vershbow, 
earlier this week, General Craddock testified before this 
committee and in his written testimony he recommended 
maintaining two heavy brigade combat teams (BCTs) in Europe. I 
would like the thoughts of both of you on troop levels and 
composition for European Command, and how do you think we need 
to posture ourselves in Europe in response to Russia as well as 
our commitments to allies, threats of WMD proliferation, and 
transnational terroristic threats?
    Dr. Miller. Senator, the plan change to take those 
additional two heavy BCTs out of Europe is the product of a 
global posture review conducted by the previous administration, 
something like 6 years ago now. I think that what's happened in 
the mean time is that the world has changed. We're obviously 
now at war in Iraq and Afghanistan in significant ways. As we 
begin the transition from Iraq over the coming years and as we 
rebalance in Afghanistan as well, my view is that it merits 
taking a fresh look, not just at the question of these two 
heavy BCTs, but a fresh look at the global posture across the 
board.
    I would anticipate, if confirmed, it would be something I 
would hope to engage in as part of the QDR.
    Senator Chambliss. Ambassador?
    Ambassador Vershbow. Senator, I fully agree with what Dr. 
Miller just said about the importance of taking a fresh look at 
the overall global force posture. In the case of the 
recommendation by our Supreme Allied Commander, General 
Craddock, I think it is important to take a look at that. It's 
under review, as I understand, right now. Clearly there have 
been some significant developments even in the last year, 
including the Russia-Georgia war, which has cast new light on 
the critical importance of Article 5 of the NATO Treaty, 
especially for our new members in Central and Eastern Europe.
    So I think it is appropriate to look at this question in 
the context of our global force posture review.
    Regarding potential cooperation with Russia in dealing with 
trans-national terrorist threats--that was your second 
question, Senator?
    Senator Chambliss. Yes.
    Ambassador Vershbow. I think we've had reasonably good 
cooperation with Russia over the years, even as some other 
aspects of our relationship have become more difficult. I think 
that the Russians certainly recognize that some of the most 
serious threats to their own security are the same as the ones 
that we worry about: instability to their south, Islamic 
fundamentalism, and of course the conflict in Afghanistan is 
very close to their own borders.
    We've had a good counterterrorism working group with the 
Russians that has identified potential areas of cooperation. 
But I think there's more that we could do. I think there are 
some areas where we see the Russians taking a stance that could 
be more constructive. Iran is one example. I hope that as we 
try to expand those areas of cooperation we can do more with 
the Russians than we have in the past.
    Senator Chambliss. Thank you.
    Senator Reed. Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman, and thank each and 
every one of you for your interest and commitment to service in 
our government.
    Dr. Miller, I too had a son who graduated from Duke, 
although he was there much later, after you left. Sorry he 
didn't get to take your classes.
    In North Carolina we have a large number of resettled 
refugees from the Democratic Republic of the Congo, and they 
talk to me frequently about the extreme violence in the eastern 
region of their home country. Last week, General William Ward, 
the Commander of AFRICOM, provided our committee with an update 
on the dire security situation in the east. He spoke about the 
ongoing military operations against the various rebel groups in 
that region, which according to reports his command helped to 
plan.
    I was wondering, Ambassador Vershbow and Dr. Miller, if you 
could provide the committee with your views on the situation in 
the Democratic Republic of the Congo and any update on the 
assistance that AFRICOM recently provided in supporting the 
multilateral military operation; and also if you can keep me 
and my staff updated on any decisions that are being made 
involved in decisions related to the Congo.
    Ambassador Vershbow. Thank you, Senator. I think that 
you've identified an important issue that highlights the fact 
that security problems on the African continent are going to 
become an increasing focus for the United States in the coming 
years. I think that the fact that we decided to consolidate our 
resources focused on Africa in the form of the new AFRICOM was 
a very important initiative. The design of that has, I think 
rightly, tried to take a more integrated approach between 
civilian and military instruments of power.
    Since I'm not yet confirmed, I don't have a very up-to-date 
insight into exactly how deeply involved we were in the recent 
operations. I do understand that there was some planning 
assistance involved.
    I think that the trends in the Democratic Republic of the 
Congo have been positive as they've begun to recover from a 
decade of conflict and civil war. But I think that our 
provision of security assistance in targeted ways can help them 
get over the remaining hurdles. Thus far I think we've been 
focused on helping them reform their own defense sector and 
provide capacity-building assistance. But I need to get more 
deeply into the subject, if confirmed for this position, and I 
look forward to keeping in touch with you and your staff on 
this issue.
    Senator Hagan. Thank you.
    Dr. Miller. Senator, I would just add that, to pile onto 
what Ambassador Vershbow had to say, that the work of AFRICOM, 
working with other agencies of the Government--including State 
and the U.S. Agency for International Development, in 
situations where it's not quite so dire and where those 
personnel are able to get in is, I believe, a critical part of 
U.S. capabilities for making improvements on the African 
continent.
    The use of targeted aid and the support of AFRICOM in terms 
of planning operations I think is also a very important 
instrument. I, like Ambassador Vershbow, don't have insights 
into exactly what happened, but I also will commit, if 
confirmed, to work with you and your staff to keep you updated.
    Senator Hagan. Thank you.
    I have another question, about the oil bunkering. Your 
responses to the committee's APQs--and this is to Ambassador 
Vershbow and Dr. Miller again--you discussed your intent to 
work with the State Department to develop strategies to counter 
the serious problem of oil bunkering in the Niger Delta. In 
particular, you emphasized maritime security and military 
capacity-building.
    Given our growing dependence on West African countries for 
our energy requirements, I was pleased to see your interest in 
working on this issue. Ambassador Vershbow and Dr. Miller, can 
you expand on your answer to the committee? I'm particularly 
interested in knowing whether you believe we can overcome the 
issue of systemic corruption in Nigeria and successfully 
building the Nigerian military's capacity to respond to this 
threat, and whether you think any near-term progress can be 
made on this issue?
    Ambassador Vershbow. Senator, I will confess that this is a 
subject on which I need to learn a lot more about.
    Senator Hagan. Okay.
    Ambassador Vershbow. But from what I've been briefed thus 
far, I'm told that the assistance programs that we've carried 
out with the Nigerian military are going well, that the level 
of professionalization is improving. So I think with persistent 
effort over several years, we should be able to help them deal 
with the corruption issue.
    But this is again an area where I may need to delve more 
deeply into the subject.
    Senator Hagan. Okay.
    Dr. Miller. Senator, the problem of oil bunkering and 
lawlessness in the Niger Delta is longstanding and serious. The 
assistance that the United States can provide I think is 
important, but I think it's essential to understand that this 
the problem has deep roots in the history and regionally in 
this area of the Delta and with the Nigerian military facing 
other challenges as well, security challenges in the north. We 
should expect to make progress and we should work to make 
progress, but we should expect that it will be challenging. The 
question of corruption is certainly longstanding and one where 
the United States will have to pay attention as it works with 
the government.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding.] Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you to all of you for your willingness to serve the 
country. I appreciate your appearing before the committee this 
morning and responding to the questions that we have.
    As I conveyed to Dr. Carter in a meeting in my office, I 
have an interest in long-range strike capability and I would 
like to pose a question to Dr. Carter as well as Dr. Miller, 
regarding that subject, and refer to an article that was 
published in the January-February edition of the Foreign 
Affairs Journal, in which Secretary Gates wrote that ``The 
United States' ability to strike from over the horizon will be 
at a premium'' and will ``require shifts from short-range to 
long-range systems, such as the Next Generation Bomber (NGB).''
    Dr. Carter, I also wanted to note that you had written a 
piece titled ``Defense Management Challenges for the Next 
American President'' for Orbis, which is a journal published by 
the Foreign Policy Research Institute. Your piece was in the 
winter 2009 edition of that publication, and in that piece you 
write about what you quote as ``prudently hedging'' against the 
down side scenario of competitive or aggressive behavior by 
China.
    You write that: ``A more specific focus of prudent hedging 
is to frustrate Chinese efforts in counter-air, counter-
carrier, counter-space, and counter-information capabilities.'' 
When you speak of frustrating Chinese efforts in counter-air 
capabilities as part of what you term the ``China hedge,'' do 
you think those efforts should include development of the NGB, 
which is expected to be able to penetrate air space that is 
protected by highly advanced air defense systems?
    Dr. Carter. Thank you, Senator. I appreciate the reference 
to both Secretary Gates's statement and to that article.
    There are several dimensions to frustrating Chinese anti-
air capabilities which are relevant in a number of situations, 
the Taiwan Strait contingency being one. That article also 
refers to the possibility, which I certainly don't hope for and 
I personally consider unlikely, but still one to be taken 
seriously, that China's evolution takes it in a direction that 
brings it to a position of antagonism with the United States. 
That needs to be a little piece of our planning and our 
technology and program work that hedges against that 
eventuality. That was the thrust of the article.
    The NGB would certainly be in that portfolio of things. I'm 
sorry I'm not in a position to speak specifically to the NGB 
program now. I have not had access to that program in the 
course of the pre-confirmation process. So that's something 
I'll be able to look into if and when confirmed.
    I noted from our conversation the importance of that 
program in your mind as well as mine. When I get access to it, 
if you'll allow me, I'd like to come back and tell you what I 
found.
    Senator Thune. Good. I appreciate that. I understand you're 
somewhat limited at this point in time in what you can say 
about it.
    Dr. Miller, in your view, how does the NGB and long-range 
strike capability fit into our national security strategy and 
the new QDR?
    Dr. Miller. Sir, I certainly agree with the quote that you 
provided from Secretary Gates with respect to the importance of 
long-range capabilities. More broadly, I'd say that over time 
it's worth considering a shift in balance, shorter range to 
longer range, and also not across the board from any systems, 
manned to unmanned as well, because unmanned provides longer 
duration, persistence, and some other advantages.
    Like Dr. Carter, I have not had an opportunity to look into 
the details of the program and its capabilities, but we 
certainly expect that it would be an important issue in the 
QDR.
    The question of shorter-range and long-range aviation 
overall takes up a tremendous amount of the overall 
procurement, research and development procurement budget of the 
Department. So it's certain to be an area of attention in the 
QDR, pretty much without question, sir.
    Senator Thune. As you perhaps know, the 2006 QDR did call 
for fielding the NGB by 2018. I guess I would be interested as 
you have an opportunity to begin to review some of those time 
lines, your thoughts about whether or not that's something we 
can continue to keep on schedule.
    We are somewhat concerned about the age of the bomber fleet 
today, the B-52s, B-1s, B-2s, and some of the limitations that 
are imposed on those as assets that can be used in different 
operations and theaters, and the need for long-range strike and 
the need for range and payload that bombers can deliver. So my 
view is that the NGB is an important piece of our national 
security strategy, and I hope that you will come to that 
conclusion when you have an opportunity to review it more 
completely.
    One other question, with regard to the missile defense 
systems. I know some of that ground's been covered already and 
so I'll try not to be redundant. But I think the question has 
to do with capability and reliability. I think I mentioned, Dr. 
Carter, in our discussion as well that the system has 
demonstrated considerable success during test flights and, 
according to the MDA, across all missile defense systems 
programs. Thirty-seven of 47 hit-to-kill intercepts have been 
successful since 2001.
    Now, in the past 2 years, 13 of 15 intercepts have been 
successful, and we've had a couple combatant commanders in 
front of the committee, Admiral Keating and General Renuart, 
who testified earlier that they're confident the ground-based 
missile defense system would work if North Korea ever fired a 
missile at us. In fact, Admiral Keating went so far as to say 
that we have a high probability of knocking down a North Korean 
missile fired at us.
    The President, however, has said that missile defense 
should be deployed only after ``the technology is proved to be 
workable.'' If confirmed, the three of you are going to have 
considerable influence on the future of this system, and I'd 
like to get your thoughts on that.
    Dr. Carter, are you confident about that capability at this 
point?
    Dr. Carter. Senator, I'm not confident of that as I sit 
here today. Clearly it's something, given the quote you made 
from the President, that if I am confirmed, I need to get in 
and get a look at.
    I do have some familiarity, however, with that as a 
consequence of my beat on the National Missile Defense White 
Team, and the technical effectiveness of the system has grown 
steadily over time, that's to be expected with the evolution of 
technology. There are really two questions to ask about the 
effectiveness of the ground-based system against a North Korean 
threat.
    The first is whether, if the North Koreans, which is 
likely, at first do not have any special so-called 
``penetration aids'' or gimmicks on board their missile, but 
they're just trying to get it over here, what is the chance of 
an intercept in that case? We've done a lot of testing that 
bears upon that question. I think that General Renuart and 
General Chilton--I don't want to put words in their mouth, but 
I think that they anticipate, particularly if one has the 
option of shooting several times at an incoming primitive 
missile, of having a good chance, as you said, of being 
successful.
    The question of the next generation--or a ballistic missile 
accompanied with penetration aids gets a lot more difficult. In 
fact, it's inherently difficult for a passive infrared sensing 
missile defense system to deal with that circumstance. Now, 
that wouldn't be what the North Koreans started with first. 
That becomes another question.
    I think both the first issue, dealing with North Korea in 
the near-term, and the second issue, dealing with them in the 
far-term, are in the intent of the President's statement, and 
if I'm confirmed, I'll get in there and get to the bottom of it 
and discuss it with you as we go.
    Senator Thune. If I might, Mr. Chairman, just to the other 
members of the panel. Dr. Miller and Ambassador Vershbow, what 
would you plan to do about the European missile defense site, 
the so-called third site, that has been something that has been 
of great focus here in the last few years, and more recently in 
the last few weeks as discussions have gotten to more of an 
elevated level about that particular site.
    Dr. Miller. Senator, let me first provide a very brief 
answer to the earlier question and agree with Dr. Carter, but 
also note how much has changed over the last couple decades 
from when I worked on the Hill previously. The defense of the 
country clearly needs to be top priority of all departments, 
including DOD. There is no such thing as a perfect defense 
against all threats.
    We have to expect adversaries to adapt, including North 
Korea, as Dr. Carter suggested. In looking at the system's 
capabilities for our National Missile Defense Security and how 
those should be adapted over time is a fundamental issue.
    I say that because, when you talk about the European site, 
so-called ``third site,'' that is an issue as well. It will be 
addressed, I would expect, as part of another review of the 
congressionally-mandated review of the Missile Defense Review, 
but also in the context of discussions with Poland and the 
Czech Republic. The United States had previously made an offer 
to Russia to have some involvement, some cooperation with the 
system. I expect that it would make sense to me to have 
continued engagement with Russia on that question; then also to 
have a look at what Iran does and whether it's willing to 
verifiably stop its nuclear activities, and what that does for 
the threat and how that comes into the mix.
    I expect that there'll be extensive consultations with our 
allies on this question and with Russia on this question over 
the coming weeks and months.
    Senator Thune. Ambassador, anything to add?
    Ambassador Vershbow. Senator, I endorse what my colleagues 
have said. If confirmed for my job, I will be approaching this 
issue, obviously, from the political perspective. I will leave 
the issue of technical evaluation of the effectiveness of the 
systems to my colleagues.
    I think it is important that the NATO alliance has endorsed 
missile defense. I think we've come a long way in reaching 
consensus that there is an emerging threat that affects not 
only the United States, but our allies in Europe; and I think 
that our newer allies in Poland and the Czech Republic have 
taken important risks in agreeing in principle to the third 
site.
    As I understand it, our overall policy on missile defense 
is now under review, so I can't really speak authoritatively as 
to precisely what we may do. But I would underscore what Dr. 
Miller said, that when it comes to the third site in Europe the 
driving factor is the emerging threat posed by Iran, both its 
pursuit of a nuclear weapons capability and its ability to 
marry that capability to long-range ballistic missiles.
    Now, of course if we were, as others have said, able to 
eliminate that threat in a verifiable way, we'd have to look at 
the situation in a different light. But we're far away from 
achieving that goal, and so I think it's going to be a very 
important issue, on which we will need to continue to consult 
with our allies and of course with Congress.
    The Russians have made a lot of complaints about the 
proposed third site. I believe that if one looks carefully at 
the geography and the technical capabilities that are being 
considered, this system poses no threat to Russia. It's 
directed at Iran. But I think the way forward--and this is 
something that Chairman Levin has spoken about just recently--
could be to try once again to pursue cooperation in missile 
defense with Russia, which faces similar threats, may have some 
technological contributions to make to some kind of combined 
architecture. I think this could be a way of reinvigorating 
NATO-Russia cooperation, which has not fulfilled its early 
promise.
    So there's a lot of different dimensions to this issue. The 
policy is under review. I think we'll want to continue to take 
on board the views of this committee and other Members of 
Congress.
    Senator Thune. Thank you, and I appreciate your 
observations. I agree when you have NATO endorsing it, the 
Czechs and Poles have invested and risked a lot on this, and I 
would hope that it's something that we don't walk away from.
    Thank you.
    Chairman Levin. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    I'm going to have to be real brief because I have to run to 
the floor. So I have two questions for Dr. Carter. Doctor, 
several acquisition programs have experienced cost overruns, 
including Nunn-McCurdy breaches and schedule delays and the 
like, and we all want to turn this negative trend around. What 
would you consider to be the essential principles of 
acquisition reform that could help do this, and specifically 
what are your thoughts about how competition can contribute to 
that?
    Dr. Carter. Thank you, Senator. I think I'd start, with 
respect to the reform part of your question, with the 
observation of Secretary Gates, and he said a few weeks ago 
with respect to acquisition reform: There is no silver bullet. 
What he meant by that--and I completely agree--is that as we 
look at the programs that are in trouble, as you noted--I think 
you said several; I wish it were only several; it's many 
severals that are in trouble--and you go back through their 
lifetime and do the diagnosis, how did we get to where we are, 
what went wrong, there are a number of different things that 
you can point to.
    So there isn't one common denominator, but there are some 
things that keep popping up. One is the size and quality of the 
acquisition workforce, the people who do this job, from 
contracting to systems engineering and so forth, on the 
government side. That seems to be a frequent offender.
    Another one--and I'm committed to try to fix that problem 
and this committee has already taken some action in that regard 
in years past, long before I came along for nomination, to deal 
with that. Other causes, I won't go through them all, but 
they're almost all covered in the draft legislation that is 
coming out of this committee, the Weapons Acquisition Reform 
Act of 2009. They have to do with, in addition to systems 
engineering, better cost estimation, including paying attention 
to cost estimates once you get a cost estimate, technology 
development, technology maturity, technology readiness at the 
early stage of a program, and your second point, which is 
competitiveness.
    I believe that competitiveness is the single most powerful 
tool the government has to get good value. We have a system in 
which we don't make our weapons inside the government. We 
contract with the private sector for them, and competition is 
the great discipliner. It's not always possible to have 
competition in programs because there aren't always many 
manufacturers of the things that we need in defense. There's 
been some consolidation of the industry over the last couple 
decades. But even in those cases, it's usually possible to have 
competition far enough into the program to discipline it, that 
is through the development phase. It's also possible, even if 
you can't have competition at the level of the prime contractor 
throughout the lifetime of the program, to maintain a 
competition at lower tiers of the program that supply 
subsystems.
    So in all these ways we need to keep looking for ways to 
keep competition alive, because that's the great discipliner 
that gives value to the warfighter and to the taxpayer. I'm 
committed to looking for those vehicles to keep competitiveness 
alive and, as I said, some of them have already been suggested 
by this committee.
    Senator Vitter. I'm concerned about several examples of 
that, and one near the top of my list is JSF and the issue of 
engines. Congress has repeatedly pushed for competition in that 
area and has inserted that into the budget, and DOD has 
repeatedly resisted and never itself put that into the budget.
    Would you support having that in the budget and continuing 
that competition because of the discipline, particularly long-
term, it would provide?
    Dr. Carter. I understand exactly why some have favored an 
alternative engine for JSF, and I also understand the other 
argument. Let me just spell the two out. But the net of it is 
that I don't have access to the information now that allows me 
to make this tradeoff. But if you have two engines, you have 
the value of competition. On the other hand, you're paying for 
two programs.
    So where does that come out? That's a quantitative question 
essentially and I don't have access to the information to allow 
me to make that assessment.
    Senator Vitter. I'd urge you to focus on that as soon as 
possible. I'm going to propound some more detailed questions 
about that as your nomination is pending. I believe that the 
Pentagon's decision, based on what I know, is based on a very 
short-term calculus of those pros and cons you're talking 
about, not a project life calculus, and I'm concerned about 
that, and I think competition there would really bring some 
rigor to that program, and I think a lot of folks, not just 
those directly involved, but the prime and other folks 
involved, support that.
    I'll be propounding some more detailed questions, but I'd 
love for you to look at that.
    Dr. Carter. I absolutely will look into it and try to 
answer the questions.
    Senator Vitter. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Vitter.
    Senator McCaskill, are you ready?
    Senator McCaskill. I am. I just have one brief area I want 
to cover, Mr. Chairman.
    I want to thank Dr. Carter for spending some time with me 
in my office yesterday. I want to just for the record of this 
hearing talk about some of the things we talked about 
yesterday, most specifically contracting as it relates to 
operations in a contingency and the problems that have occurred 
in Iraq and before that in Bosnia, the same problems; and make 
sure that we have on the record your commitment to realize that 
that's a very important part of your responsibility at DOD.
    Specifically, I would like you to speak briefly about what 
you would envision your plans as it relates to the drawing down 
of the contract force in Iraq. It is a huge undertaking to draw 
down that contract force and to do it in a way that is cost 
effective for the American taxpayer and that we get value out 
of the stuff that we've paid for that these contractors have is 
a big concern of mine. I have not yet heard anyone really 
address this issue that shows that there's a lot of planning 
going into it and a lot of forethought about how we can do it 
in a way that works for the American taxpayer, because frankly 
not much about contracting has worked either for the American 
military in terms of getting stuff we need at the best value, 
or the American taxpayer.
    Dr. Carter. Thank you, Senator, and I appreciated your 
giving me the time yesterday. I do absolutely share your 
concern. This is a big subject, contractors, the use of 
contractors in contingency operations, when that's appropriate 
and how to manage them.
    My own view is, as I shared with you yesterday, it's 
unavoidable. We can't do it all ourselves. But there's a 
question of what activities are appropriate to contract out and 
then contracting competently so that there is no waste, fraud, 
and abuse and there's effective and efficient contracting. I 
think that there's reason for concern in recent years in 
dealing with Iraq and also Afghanistan about all those 
questions, you're absolutely right.
    Also, another point you made which I agree with: Once you 
have all of these folks working for you and the need goes away 
or the need changes, are you able to move them from one place 
to another or move them off the government payroll when the 
contingency's over?
    The last thing I'll say, I'll say for everyone, but I said 
yesterday, is I'm highly aware that the title of the job for 
which you're considering me is ``AT&L,'' and that's not an 
afterthought in a time of war. Secretary Gates has expressed 
his determination to supply the troops in the field the way 
they deserve. We have a big job to move equipment out of Iraq 
and into Afghanistan, and I realize I will be involved in that 
and that's a huge task, and to deal with this question of 
contingency contracting and contractors on the battlefield. As 
I said to you yesterday, that's something I know I need to get 
on top of if I get in this job, and I'm committed to working 
with you and learning from you and telling you what I learn as 
I do that.
    Senator McCaskill. I think it is a big job, and I think 
that one of the ways that we will fix this long-term is for 
there to be an atmosphere of accountability. I'm not aware of 
anyone ever losing any kind of rank, getting any kind of 
demotion, just for their failure to oversee contracts in a way 
that makes sense. Until we instill that in the culture, I worry 
that our military commanders, for all the right reasons, want 
to focus on the mission, and they don't see how much stuff 
costs on contracts, whether it's in the mess or whether it's 
who's cleaning the latrines or who's doing the laundry--they 
don't really see that as part of the mission, and fixing that 
culture is probably the hardest part, and I wish you all the 
luck.
    Dr. Carter. Thank you.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Dr. Carter, DOD now actually spends more for the 
acquisition of services than it does for the acquisition of 
products, including major weapons systems. Yet the Inspector 
General and GAO have reported that the Department routinely 
fails to conduct required acquisition planning and contract 
oversight functions for its services contracts.
    We enacted a provision a couple years ago that required the 
DOD to develop a comprehensive inventory of activities that are 
performed by service contractors, to serve as the basis for an 
analysis of whether we've gone too far in contracting out. The 
first inventory was supposed to be submitted last July. The 
Department now says it'll be unable to meet this requirement 
until 2011 at the earliest.
    Now, that really shows the problem. We have contracted out 
so much of the services that are needed that we can't even 
inventory those services for years.
    This is a real issue around here, this contracting out and 
whether or not we're getting our money's worth. There are some 
policy issues, but there's also some financial issues here. 
There's some real policy issues which I referred to in terms of 
contracting out security functions, but there's also some 
significant dollars here that are at issue. Will you ensure 
that the Department conducts the inventory of activities 
performed by service contractors in a timely manner?
    Dr. Carter. I will, Senator.
    Chairman Levin. Will you tell us what the earliest date is 
we can expect that? Once you're confirmed and check this out, 
will you get back to the committee?
    Dr. Carter. You bet, Senator.
    Chairman Levin. Dr. Miller, you wrote last September about 
the need for game-changing diplomacy with Iran, to emphasize 
more the need to put in place a comprehensive verification 
regime on Iran's activities and to talk directly with Iran on a 
broad range of issues. President Obama last Friday issued a 
video message to the people and Government of Iran in which he 
said that Iran had a choice, to assume its rightful place in 
the community of nations, but that Iran could not achieve this 
through terror and arms.
    Do you believe that there is an opportunity to engage Iran 
on issues of mutual concern, or at least that the attempt 
should be made?
    Dr. Miller. Mr. Chairman, yes, I believe certainly an 
attempt should be made. Whether there's an opportunity or not 
we will find out as we see the reaction of the Iranians.
    Chairman Levin. One of the issues, of course, that we're 
most concerned about with Iran is a potential missile threat, 
particularly if they ever achieve and obtain a nuclear weapon, 
given the makeup and the rhetoric of their current leadership. 
One of the arguments that I've been making is that if we can 
improve our relations with Russia, particularly if we can work 
with Russia on a joint missile defense that would be a defense 
against Iranian missiles, that this could be a true game-
changer in a lot of ways, not just in providing a missile 
defense, but in terms of making a very strong statement to Iran 
about the determination of the world community, including 
Russia working with us, to deal with an Iranian threat.
    First, Dr. Miller, if the United States and Russia could 
agree on a cooperative approach to missile defense, do you 
think that would be an important statement in terms of a 
determination to deal with Iran, but also could help to improve 
U.S. security in other ways?
    Dr. Miller. Yes, Mr. Chairman, I do.
    Chairman Levin. Ambassador Vershbow, do you have a comment 
on that? Would you agree with that?
    Ambassador Vershbow. Mr. Chairman, yes, I would agree very 
much that if we could achieve cooperation with Russia on 
missile defense it would be a very important step in our 
relationship with Russia in dealing with a common threat, and 
it would send a very important message to Iran as well, which 
could underpin the diplomatic engagement that we are going to 
attempt to see whether we're able to get them to change their 
course on nuclear weapons development.
    Chairman Levin. Secretary Gates told us about a month ago 
or so that NATO would welcome cooperation or discussions about 
the possible cooperation between the United States and Russia 
relative to a cooperative approach to missile defense. You, of 
course, are an expert on NATO. Would you agree with Secretary 
Gates that NATO would welcome those efforts?
    Ambassador Vershbow. I agree 100 percent with Secretary 
Gates on this, and my experience is that this attitude of our 
NATO allies goes back many years. As NATO itself has come to 
see the importance of missile defense, they have also 
emphasized their interest in cooperating with Russia. Whether 
it's in the NATO-Russia context or a U.S.-Russia context, 
they're very much for it.
    Chairman Levin. Dr. Miller, the Law of the Sea Convention 
is pending in the Senate. In your response to prehearing policy 
questions, you stated that you support U.S. accession to the 
convention. Can you tell us what advantages you see in our 
joining that convention?
    Dr. Miller. Mr. Chairman, in my view there are numerous 
advantages to accession. Let me just list a couple for 
starters. The first is that the United States has a strong 
stake in freedom of navigation across the globe and that the 
convention would bring the United States additional tools to 
enforce that and to bring it in compliance also with 
international guidelines on that with the other countries that 
are involved across the globe.
    Second, stepping out of the defense area, as the Arctic 
opens up and we've seen an opening that allows passages that 
haven't been the case for as long as we've recorded the 
situation up there, there is a growing competition over 
minerals and over energy resources of other kinds, including 
oil, in that area, and accession to the Law of the Sea would 
give the United States a firm foundation for competing for 
those resources.
    Chairman Levin. Thank you.
    Dr. Miller, Ambassador Vershbow, let me turn to Afghanistan 
for a minute. One of the reasons that the expansion of the 
Afghan Security Forces is slower than we'd like is the lack of 
trainers. That's the long pole in the tent, we've been told by 
a number of our military leaders.
    The second longest pole would be the shortfall in equipment 
for the Afghan Security Forces. At Tuesday's hearing, General 
Craddock said that NATO members are failing to provide funds 
for the NATO Afghan Army Trust Fund, which would help pick up 
costs both of training and equipping the Afghan army.
    Let me ask you, Ambassador, would you look into the NATO 
trust fund issue, press NATO members to meet the agreed target 
for that fund? Will you--and I guess this would also apply to 
Dr. Miller--try to see what you can do to speed up the 
availability of equipment to the Afghan army and the Afghan 
police?
    Ambassador Vershbow. Mr. Chairman, if confirmed, I 
definitely will make all of those things a high priority. I 
think that these are issues that we would also be looking for 
some progress on at the upcoming NATO summit, and particularly 
the trust fund that you mentioned. These are all keys to 
success in Afghanistan and I think our allies have not done as 
well as we had hoped, but we will continue to press.
    Chairman Levin. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Chairman Levin, for your 
courtesy and your good leadership of this committee.
    I congratulate President Obama on your nominations. From 
what I have seen in my opportunity to meet with each of you, I 
believe you bring to the government the kind of experience and 
good judgment that we need. You'll be under a lot of 
challenges. There's an article today about liberal groups 
demanding the President cut the defense budget even more. Our 
preliminary analysis of the budget that the President has 
submitted would indicate that he will be taking the defense 
expenditure from over 4 percent, almost 4.5 percent of gross 
domestic product, to 3 percent of gross domestic product. 
That's a dramatic cut if it's carried out and it's going to put 
some real pressure on each one of you in conducting your 
affairs in a fair and legitimate way.
    What has happened in the past is that procurement, Dr. 
Carter, is the thing that gets whacked, because you have to pay 
the salaries for our men and women in uniform and their health 
care, the electric bills, the housing, the transportation and 
upkeep on the equipment, and the fuel that goes in it. That is 
just a dangerous thing and I hope that you will recognize, as 
you and I talked earlier, that each President does have a 
responsibility during his watch to not only pay the salaries of 
our personnel, but also to provide for the future the weapons 
systems that they may need, but take years to develop.
    Would you agree that that's a responsibility a President 
has?
    Dr. Carter. I would, absolutely.
    Senator Sessions. Dr. Carter, in your advance questions I 
was pleased with a number of your answers. One of them, you 
were asked about international participation in the American 
defense base and you stated: ``It also helps the Department to 
achieve the advantages of competition in contracting, which 
includes the ability to obtain world-class best value products 
for our warfighters.''
    Do you stand by that statement?
    Dr. Carter. I do.
    Senator Sessions. I think that's fundamentally correct. Let 
me ask you this first, ``best value'' is a term that has some 
meaning within defense circles. Could you briefly summarize 
what that means to you?
    Dr. Carter. Yes. ``Best value,'' I think, means in 
acquisition more or less what it means in everyday life, which 
is looking at a purchase, in this case of a system, by taking 
into account all of the attributes that one wishes to have. So 
it means the same thing as it means when I think the person, 
any of us, goes in to best value to buy a radio or something.
    Senator Sessions. So price is a factor, quality is a 
factor, capabilities are a factor, all things, and you try to 
make a judgment for the warfighter based on the overall 
assembly of qualities that provide the best value for the 
military?
    Dr. Carter. That's correct. One attaches weights to the 
various factors and makes a decision accordingly.
    Senator Sessions. Let me just be frank with you. We're 
talking about an Air Force refueling tanker bid process that's 
been stopped. Secretary Gates said that as soon as you're on 
board it'll be your project. Congratulations. I said he punted 
and he caught his own punt and now he's going to hand it off to 
you. [Laughter.]
    But I believe strongly that best value is a fundamental 
principle of any good acquisition system. So I'm a little 
worried because I've heard some comment that, not official, 
but, well, we might just decide this purely on price. I would 
note that in the last bid round that the aircraft that would be 
built in my State was a good bit cheaper. At any rate, I think 
it was a more capable aircraft also.
    But I think best value is the right principle. Do you 
intend to apply the best value principle to your supervision of 
the bid process for the number one Air Force priority, the 
replacement of the aging tanker fleet?
    Dr. Carter. I recognize this is going to be a big 
responsibility. I think best value is a good principle in 
acquisition, as it is in everyday life. What I committed to you 
when we chatted earlier, and I do again, is my job as I 
understand it, if I'm confirmed, with respect to the tanker 
deal, is to serve up the best acquisition strategy as honestly 
as I possibly can.
    I realize that this acquisition program's been through its 
ups and downs and so forth. I'm going to take a fresh eye to it 
and call it to the Secretary of Defense as straight as I 
possibly can.
    Senator Sessions. But do you intend to use the principle of 
best value for the warfighter? Because we required this 
contract to be bid, Congress did, after a flap over the 
contract--and some people went to jail. We required it to be 
bid, and there were only two bidders in the whole world that 
could supply this aircraft. Both of them would build their 
aircraft in the United States.
    I guess my question to you is, when you're going to analyze 
this why would you not use the traditional process of best 
value?
    Dr. Carter. I would use exactly the traditional process of 
best value in this case and attach the weights to the various 
parameters that go into best value, of which price is one, and 
call it like I see it. The Secretary of Defense and the 
President will have a voice in that as well. But my commitment 
to you is I will call it absolutely straight.
    Senator Sessions. I thank you for that. We had a lot of 
political talk and out of all this storm DOD will have to 
maintain its reputation for integrity and making decisions on 
the merits and not politics. I feel like you've been there, you 
understand the pressures you're likely to be subjected to, but 
you'll do the right thing. That's what my present belief is, 
and I hope that the Secretary or others wouldn't alter the 
traditional process of choosing the best aircraft.
    Chairman Levin. Thank you, Senator Sessions.
    There are no more questions, so we will bring the hearing 
to a close. I want to before I close just say two things. 
First, we're going to bring these nominations to a vote of the 
committee as quickly as we possibly can and hopefully get these 
to the floor before recess.
    Second, I just want to not only thank you for your 
commitment to public service; I want to thank again your 
families. If you don't mind, Dr. Miller, I want to single out 
particularly your younger kids. They have looked interested way 
beyond what could reasonably be expected of kids their age. I 
have grandkids about their age, so I won't say any more than 
that. But anyway, I know how important it is that all of you 
have your families here, but particularly when you have young 
kids that would much rather be out there in the rain.
    Dr. Miller. Thank you, Mr. Chairman.
    Chairman Levin. Thank you all. We will stand adjourned.
    [Whereupon, at 11:55 a.m. the committee adjourned.]

    [Prepared questions submitted to Ashton Carter by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I worked in the Pentagon both before and after the passage 
of the Goldwater-Nichols Act, and I have seen its benefits in terms of 
jointness, provision of military advice to the President, and 
streamlined acquisition management. Some of the act's principles are 
also being applied to interagency coordination. At this time I see no 
specific changes in the act that I would recommend. If confirmed, I 
would have the opportunity to assess whether changes were needed, and 
if so consult with this committee.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Acquisition reform must be a central priority, and if 
confirmed I will be assessing proposals for reform, including ones that 
might touch on aspects of Goldwater-Nichols. I will consult with this 
committee if such a proposal arises and appears to have merit.
                                 duties
    Question. Twenty years ago, Congress established the position of 
Under Secretary of Defense for Acquisition in response to the 
recommendations of the Packard Commission. The Packard Commission 
report stated: ``This new Under Secretary . . . should be the Defense 
Acquisition Executive. As such, he should supervise the performance of 
the entire acquisition system and set overall policy for R&D, 
procurement, logistics, and testing. He should have the responsibility 
to determine that new programs are thoroughly researched, that military 
requirements are verified, and that realistic cost estimates are made 
before the start of full-scale development. (In general, we believe, 
cost estimates should include the cost of operating and maintaining a 
system through its life.) He should assure that an appropriate type of 
procurement is employed, and that adequate operational testing is done 
before the start of high-rate production. He also should be responsible 
for determining the continuing adequacy of the defense industrial 
base.''
    Do you believe that the position of Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(ATL)) has the duties and 
authorities necessary to carry out the recommendations of the Packard 
Commission?
    Answer. Yes.
    Question. Do you see the need for modifications in the duties and 
authorities of the USD(ATL)?
    Answer. No.
    Question. Do you believe that DOD has effectively implemented a 
streamlined chain of command for acquisition programs, as envisioned by 
the Packard Commission?
    Answer. I believe that the Department has implemented acquisition 
chains of command that provide a good management structure to meet 
current acquisition requirements and outcomes. If confirmed, I will 
continue to examine these acquisition structures and oversight chains.
    Question. Do you see the need for modifications in that chain of 
command, or in the duties and authorities of any of the officials in 
that chain of command?
    Answer. Not at this time. I believe the statutory reporting chain 
which provides USD(AT&L) directive authority for Service acquisition 
programs via the Service Secretaries is a critical authority which must 
be maintained. If confirmed, I will evaluate the current chains of 
command and recommend adjustments, if needed.
    Question. Section 133 of title 10, U.S.C., describes the duties and 
responsibilities of the USD(ATL).
    Assuming you are confirmed, what additional duties do you expect 
that the Secretary of Defense will prescribe for you?
    Answer. If confirmed, I expect the Secretary to assign me duties 
and functions commensurate with the USD(AT&L) position, and any others 
he may deem appropriate.
    Question. Do you recommend any changes to the provisions of section 
133 of title 10, U.S.C., with respect to the duties of the USD(ATL)?
    Answer. No, I do not.
                             qualifications
    Question. If confirmed, you will be responsible for managing an 
acquisition system pursuant to which DOD spends almost $400 billion 
each year. Section 133 of title 10, U.S.C., provides for the Under 
Secretary to be appointed from among persons who have an extensive 
management background in the public or private sector.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have had 25 years of experience working with and for DOD 
and its supporting defense industry and laboratories on major weapons 
systems and command and control systems. I first worked in DOD for 
Secretary Caspar Weinberger on space programs, nuclear weapons systems, 
command and control systems, and strategic defense in the 1980s. In the 
1990s I was privileged to serve as Assistant Secretary of Defense. In 
between government service I have been a consultant and advisor to 
defense companies, to defense laboratories and federally-funded 
research and development centers (FFRDCs), and a member and consultant 
to the Defense Science Board and to DOD's Threat Reduction Advisory 
Council. I have participated in many panels and studies that have 
assessed the defense acquisition system going back to the 1980s and 
have written three books that address the subject. As a physicist, I am 
very familiar with developments in defense technology and therefore 
with the role the USD(AT&L) plays in overseeing the science and 
technology (S&T) efforts of the Department. The USD(AT&L) also plays a 
key role in our nuclear deterrent and in other strategic issues. I have 
been deeply involved in technical aspects of nuclear weapons and 
missile defense since the 1980s.
    Question. What background or experience, if any, do you have in the 
acquisition of major weapon systems?
    Answer. Acquiring weapons systems in a manner that that warfighter 
and taxpayer deserve has several dimensions, and I have background and 
experience in each. Secretary Gates and Deputy Secretary Lynn have 
stressed the need to ensure that the Department's acquisition program 
meets the needs of the 21st century, and I believe they expect the 
USD(AT&L) to contribute, with other senior managers, to that end. I 
have previously participated in many governmental and nongovernmental 
reviews and analyses of U.S. military strategy, trends in the types of 
threats the United States will face in the future, and the spectrum of 
military and nonmilitary responses to these threats. Once a need is 
identified and a materiel approach selected, it is important to know 
whether the technology is mature enough to permit an acquisition 
program to commence and then to proceed at every key milestone. I am a 
physicist with long involvement in the technical aspects of defense 
programs, and I therefore believe that if confirmed, I will be able to 
discharge the USD(AT&L)'s responsibility to assess technology readiness 
levels at each step of the acquisition process. Development, 
procurement, and sustainment of major weapons systems require 
experience with DOD and the defense industry, systems engineering at 
every stage, and iron discipline. I have had 25 years of experience 
working with and for the Defense Department and its supporting 
industry, laboratories, and FFRDCs. Finally, the acquisition system 
itself is widely regarded as having failed both the warfighter and the 
taxpayer, and reform of the system is an imperative. I have 
participated in numerous reform efforts dating to the 1980s and have 
written three books that deal with the subject. I believe that, if 
confirmed, I can use this experience to help identify reforms that will 
avoid in the future some of the problems we are having with major 
defense programs today.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the USD(ATL)?
    Answer. A first major challenge is to ensure that AT&L is 
supporting the war effort through rapid acquisition of systems our 
soldiers, sailors, airmen, and marines need in Iraq, Afghanistan, and 
in the war on terror; ensuring that the logistics supply lines into and 
out of Iraq, and into Afghanistan, can support the forces and the 
required deployment timetables; and making sure the role of contractors 
on the battlefield is appropriate. A second major challenge is to get 
under control the many troubled acquisition programs that are supposed 
to be supporting our forces--both today and tomorrow. Too many of these 
programs are failing to meet their cost, schedule, and performance 
expectations, and some are failing even more fundamentally the test of 
whether they are needed for the future military challenges we are most 
likely to face. In addition to disciplining these programs, reform of 
the acquisition system is needed to ensure that we do not get ourselves 
in this position again in the future. A third challenge is to ensure 
that the Department has the strongest S&T base supporting national 
security. A fourth challenge is to ensure, consistent with overall 
national policy, a safe and secure nuclear deterrent and technically 
effective missile defense programs.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would use the experience and knowledge I 
have of defense programs, technology, and DOD to focus on these 
priorities, working with the acquisition team, other senior managers in 
the Department, Congress, and industry leaders to produce real progress 
for the warfighter and taxpayer.
                        acquisition organization
    Question. Do you believe that the office of the USD(ATL) is 
appropriately structured to execute its management and oversight 
responsibilities?
    Answer. I have not had the opportunity to familiarize myself with 
the AT&L office organization, so at this time, I am not aware of 
significant structural impediments to accomplishing its function.
    Question. Do you believe that any change is needed in the duties 
and responsibilities of the Deputy Under Secretaries of Defense serving 
under the USD(ATL)?
    Answer. See previous answer.
    Question. Do you see the need for any changes in the relationship 
between the USD(ATL) and senior acquisition officials in the military 
departments?
    Answer. Not at this time. If confirmed, I will be actively involved 
in setting acquisition policy. My expectation would be to ensure the 
senior acquisition officials in the military departments and defense 
agencies implement and follow those policies, and demonstrate effective 
execution.
    Question. Do you see the need for any additional processes or 
mechanisms to ensure coordination between the budget, acquisition, and 
requirements systems of the DOD and ensure that appropriate trade-offs 
are made between cost, schedule, and performance requirements early in 
the acquisition process?
    Answer. I am not aware of a need for additional processes or 
mechanisms at this time. If confirmed, I will examine these issues and 
recommend appropriate changes. I do believe, however, that coordination 
among these functions is absolutely necessary to best serve the 
warfighter and taxpayer.
    Question. What do you believe should be the appropriate role of the 
Service Chiefs in the requirements, acquisition, and resource-
allocation process?
    Answer. The Service Chiefs have a key role to play in the 
development of capability needs and in the planning and allocation of 
resources consistent with those needs. Service Chiefs do not play a 
formal role in the acquisition chain of command, but I would respect 
and encourage their advice on matters within their purview.
    Question. What do you believe should be the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. Combatant commanders have an important role in the 
development of capability needs and advising on priorities and 
allocation of resources consistent with those needs. I believe the 
acquisition system should be especially responsive to their urgent 
needs. If confirmed, I would respect and encourage their advice on 
matters within their purview.
    Question. Do you see the need for any changes in the structure or 
operations of the Joint Requirements Oversight Council (JROC)?
    Answer. JROC membership may be appropriate for the USD(AT&L). The 
USD(AT&L) must continue to at least participate in a full advisory 
role. Close coordination between requirements and acquisition is 
essential.
                    major weapon system acquisition
    Question. The investment budget for weapon systems has grown 
substantially over the past few years to more than $150 billion per 
year. An increasing share of this investment is being allocated to a 
few very large systems such as the Joint Strike Fighter, Future Combat 
Systems, and Missile Defense.
    Do you believe that the current investment budget for major systems 
is affordable given increasing historic cost growth in major systems, 
costs of current operations, projected increases in end strength, and 
asset recapitalization?
    Answer. I am concerned that it may not be. Moreover, I believe the 
investment budget will be under increasing pressure in the future. If 
confirmed, this is an area I will manage vigorously to ensure we have 
an affordable long-term investment strategy.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I expect to acquaint myself as quickly as 
possible with the facts of this situation and assist the Secretary and 
Deputy Secretary in addressing it.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. If confirmed, I will carefully assess the impact of any 
proposal to reduce purchases of major systems because of affordability, 
including the impact on national security risk, industrial capability, 
as well as international implications.
    Question. Nearly half of DOD's 95 largest acquisition programs have 
exceeded the so-called Nunn-McCurdy cost growth standards established 
in section 2433 of title 10, U.S.C, to identify seriously troubled 
programs. The cost overruns on these major defense acquisition programs 
(MDAPs) now total $295 billion over the original program estimates, 
even though the Department has cut unit quantities and reduced 
performance expectations on many programs in an effort to hold costs 
down.
    What steps, if any, would you take, if confirmed, to address the 
out-of-control cost growth on DOD's MDAPs?
    Answer. We cannot change history. But it is important to assess 
whether programs that have already experienced cost growth are still 
out of control and whether they can still be afforded. Looking forward 
I intend to ensure programs start out right with an appropriate degree 
of practical realism in terms of technical, performance and cost 
expectations. If confirmed, I intend to emphasize realistic overall 
cost estimates and time phased funding profiles. If confirmed, I will 
also work to devise and enforce current and possible new policies to 
discipline the system so that program requirements are well understood 
when programs start, and are stabilized as much as possible over the 
long term to guard against unreasonable future growth in costs.
    Question. What steps if any do you believe that the Department 
should consider taking in the case of MDAPs that exceed the critical 
cost growth thresholds established in the Nunn-McCurdy provision?
    Answer. I believe the current statutory provision provides the 
authority to take appropriate measures, including major restructuring 
or termination.
    Question. Do you believe that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, as currently structured, has 
the organization and resources necessary to effectively oversee the 
management of these MDAPs? If not, how would you address this problem?
    Answer. If confirmed, this is an area I would examine carefully and 
make appropriate recommendations.
    Question. Do you believe that DOD has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on MDAPs? If not, how would you 
address this problem?
    Answer. I believe sound systems engineering and developmental 
testing is a fundamental basis for acquisition decisions, and I am 
concerned about the adequacy of the organizational and human capital 
dimensions of systems engineering in the Department. If confirmed, I 
will review and assess the organizations and capabilities in this area 
and make appropriate recommendations.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision?
    Answer. Not at this time, but this is an issue I would intend to 
review if confirmed
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. The certification criteria in the statute provide a set of 
principles, namely, whether a program is still a high priority to 
national defense, has sound management, the costs are well understood 
moving forward, and that there are no other more cost effective 
alternatives.
    Question. In the budget blueprint that supports the fiscal year 
2010 presidential budget request, the administration committed to 
``setting realistic requirements, sticking to them and incorporating 
`best practices' by not allowing programs to proceed from one stage of 
the acquisition cycle to the next until they have achieved the maturity 
to clearly lower the risk of cost growth and schedule slippage.''
    If confirmed, how would you help ensure that the Department makes 
good on this commitment?
    Answer. If confirmed, I intend to enforce policies that discipline 
the system so that program requirements are well understood when 
programs start, and are stabilized as much as possible over the long 
term to guard against unreasonable future growth in costs for whatever 
reason.
                         technological maturity
    Question. Over the last several years, the Government 
Accountability Office (GAO) has prepared a series of reports for this 
committee comparing DOD approach to the acquisition of major systems 
with the approach taken by best performers in the private sector. GAO 
concluded that private sector programs are more successful because they 
consistently require a high level of maturity for new technologies 
before such technologies are incorporated into product development 
programs. The Department has responded to these findings by adopting 
technological maturity goals in its acquisition policies.
    How important is it, in your view, for the Department to mature its 
technologies with research and development (R&D) funds before these 
technologies are incorporated into product development programs?
    Answer. Launching into a product development program with immature 
technology presents a high risk with respect to cost, schedule, and 
performance. Ideally, technology maturation is accomplished through 
private sector investments, and the Department is able to harvest the 
results of commercial investments in its acquisition programs. However, 
when certain critical technologies are required for achieving mission 
success, and private sector investment is unlikely to be forthcoming or 
adequate, the Department should invest R&D funds to mature those 
technologies.
    Question. What steps if any would you take, if confirmed, to ensure 
that the key components and technologies to be incorporated into major 
acquisition programs meet the Department's technological maturity 
goals?
    Answer. Since 2006, the Department has required that all critical 
technologies for major acquisition programs must be rated as Technology 
Readiness Level (TRL) 6 or better at Milestone B, and TRL 7 or better 
at Milestone C. I believe this policy is extremely beneficial, and has 
resulted in numerous cases where acquisition programs have devoted much 
more attention to ensuring technology readiness at key milestones. I am 
in favor of developing policy and approaches that will shine a 
spotlight on technology readiness even earlier in the acquisition cycle 
to ensure that maturation occurs in a timely way.
    Question. Do you believe that the Department should make greater 
use of prototypes, including competitive prototypes, to ensure that 
acquisition programs reach an appropriate level of technological 
maturity, design maturity, and manufacturing readiness before receiving 
Milestone approval?
    Answer. Yes. When judiciously applied, competitive prototyping can 
substantially reduce development risk in acquisition programs. I say 
judiciously because it is not practical to force every program to 
prototype full systems in every case. If confirmed, I will include 
competitive prototyping in acquisition strategy decisions informed by 
technology readiness, systems engineering and integration evaluations, 
and other management factors.
    Question. Section 2366a of title 10, U.S.C., requires the Milestone 
Decision Authority (MDA) for a Major Defense Acquisition Program (MDAP) 
to certify that critical technologies have reached an appropriate level 
of maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
the DOD complies with the requirements of section 2366a?
    Answer. If confirmed, as chair of the Defense Acquisition Board and 
MDA for Acquisition Authority-1 programs, I will use technology 
readiness assessments submitted to ensure compliance with section 
2366a.
    Question. What steps if any will you take to ensure that the 
Director of Defense Research and Engineering is adequately staffed and 
resourced to support decisionmakers in complying with the requirements 
of section 2366a?
    Answer. If confirmed, I expect to work with Director, Defense 
Research and Engineering (DDR&E) and DUSD(S&T) and other members of the 
Office of the Secretary of Defense (OSD) staff to evaluate the adequacy 
of resources available to meet the challenges of complying with the 
requirements of section 2366a.
    Question. Are you satisfied that technology readiness assessments 
adequately address systems integration and engineering issues which are 
the cause of many cost overruns and schedule delays in acquisition 
programs?
    Answer. On the basis of the information currently available to me, 
I am not. If confirmed, I will direct the appropriate USD(AT&L) offices 
to ensure that systems integration, systems engineering, and technology 
maturity issues are properly addressed and coordinated
    Question. Do you plan to follow the recommendation of the Defense 
Science Board Task Force on the Manufacturing Technology Program and 
require program managers to make use of the Manufacturing Readiness 
Level tool on all programs?
    Answer. I believe strongly in the importance of manufacturing 
technology as a type of technology deserving DOD fostering just as DOD 
fosters the technologies embedded in the manufactured weapons 
themselves. I also agree that manufacturing readiness should be 
assessed more rigorously before programs pass into production. If 
confirmed, I intend to review the specific recommendations of the DSB 
report and to take actions that reflect the importance of this subject.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Department take to 
increase accountability and discipline in the acquisition process?
    Answer. There are a great number of factors that contribute to the 
pervasive failure of programs to meet their schedule, cost, and 
performance goals. As Secretary Gates has said, there is no ``silver 
bullet'' that will address all of the factors. They involve all steps 
of the process, from unrealistic requirements and technology immaturity 
at the front end of the process to instability and inefficient 
production runs at the back end, to insufficient systems engineering 
throughout the process, to many other factors. If confirmed, I will be 
committed to addressing all these factors and, where necessary, 
reforming the system to minimize the frequency of these pervasive 
problems.
                       fixed price-type contracts
    Question. Recent congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Department should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. I do think that the Department should whenever possible 
consider moving towards the more frequent use of fixed price type 
contracts in developing or procuring major defense acquisition 
programs. Whether a program should have a fixed price or cost type 
contract depends upon several key factors: 1) the stability of the 
requirement; 2) the maturity of the technology employed; 3) the ability 
to estimate accurately the cost of the system to be procured; and 4) 
stable funding. If these key factors are met, then it is appropriate to 
utilize a fixed price type contract for developing and producing major 
defense systems.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the 
Department?
    Answer. There are several impediments to technology transition. One 
is the gap between the results of R&D sponsored in DOD laboratories and 
the engineering and production processes in industry. Another is having 
a rapid enough acquisition system that the technologies it embeds in 
the systems it produces are not out of date by the time they are 
fielded. Another is the gap that sometimes develops between the 
commercial (and largely globalized) technology base and the defense 
technology base.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. As a technologist myself, overcoming these impediments will 
be a priority for me and for the DDR&E. If confirmed, I intend, with 
that individual's help, to devise and implement further measures to 
overcome these impediments.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from S&T programs and other sources, including small businesses, 
venture capital funded companies, and other nontraditional defense 
contractors, into acquisition programs?
    Answer. It is very important that defense tap into these sources, 
which are some of the most innovative in the world, for technology that 
can be applied to weapons systems. R&D and acquisition processes must 
make it easier for such entities to contribute to defense.
    Question. Do you believe that the Department's S&T organizations 
have the ability and the resources to carry technologies to higher 
levels of maturity before handing them off to acquisition programs?
    Answer. The S&T organizations can take technologies to levels 
appropriate to their mission, but going beyond that (e.g., to 
demonstrations in operational environments) would require resources not 
generally resident in S&T organizations.
    Question. What steps if any do you believe the Department should 
take to ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. To enable research programs to reduce technical risk in 
acquisition programs more effectively, they must have current, detailed 
understanding of the technical approaches in those programs. Visibility 
into acquisition program technical approaches by the research 
enterprise may need to be improved.
    Question. What role do you believe technology readiness levels 
(TRLs) and manufacturing readiness levels (MRLs) should play in the 
Department's efforts to enhance effective technology transition and 
reduce cost and risk in acquisition programs?
    Answer. Together with others, TRLs and MRLs can serve as management 
tools to gauge the maturity of technologies that might be adopted by 
acquisition programs and to estimate the effort required to achieve 
acceptable production capabilities.
    Question. Section 2359a(c) of title 10, U.S.C., requires the 
USD(ATL) to designate a senior official of the Department to support 
the development of policies to facilitate the rapid transition of 
technologies from S&T programs into acquisition programs of DOD.
    If confirmed, would you expect to appoint a single technology 
transition advocate who would be responsible for promoting technology 
transition throughout the Department?
    Answer. If confirmed, I would expect the DDR&E to be responsible 
for promoting technology transition.
    Question. If appointed, where should this official be positioned 
within the Office of the USD(ATL) to most effectively and seamlessly 
transition technologies to acquisition programs from S&T programs and 
other sources and best reflect the needs of both the user and 
technology development communities?
    Answer. See above.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. As Senator Levin explained at a June 2008 hearing, 
``contractors and program offices have every reason to produce 
optimistic cost estimates and unrealistic performance expectations, 
because programs that promise revolutionary change and project lower 
costs are more likely to be approved and funded by senior 
administration officials and by Congress.''
    Do you agree with the assessment that overly optimistic cost and 
schedule estimates and unrealistic performance expectations contribute 
to the failure of major defense acquisition programs?
    Answer. Yes. I believe there are real cultural issues at play in 
this regard. For example, each program is so difficult to start and 
``sell'' within the enterprise and Congress that multiple stakeholders 
are needed, and the tendency is to settle on satisfying everyone's 
wishes. Since few of the parties at this stage face any real penalty 
for making the program do ``a little bit more'', this drives to overly 
ambitious programs with exquisite capabilities. Ultimately this results 
in overpromising and underdelivering.
    Question. What steps if any would you take, if confirmed, to ensure 
that the Department's cost, schedule, and performance estimates are 
realistic?
    Answer. There is no one step that will ensure that cost, schedule, 
and performance estimates are realistic. But, if confirmed, I will 
insist on technology maturity and the solicitation and heeding of 
independent cost estimates.
    Question. Do you believe that early communication between the 
acquisition, budget, and requirements communities in DOD can help 
ensure more realistic cost, schedule, and performance expectations?
    Answer. Yes, and if confirmed, I will work hard to break down any 
barriers between these three processes.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. The key is leadership that is committed in all three 
processes working together. I believe that Secretary Gates and Deputy 
Secretary Lynn expect those who lead the requirements, acquisition, and 
budgeting functions to work as a team. If confirmed, that is my 
intention.
    Question. What is your view of the need for an independent office 
of cost estimating within DOD?
    Answer. The function of independent cost estimation is critical. My 
first Pentagon job in the 1980s was in PA&E, and I am well familiar 
with the capabilities of the CAIG. If confirmed, I will take a careful 
look at the cost estimation capabilities, and more importantly whether 
their results figure in decisionmaking.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Department's major acquisition 
programs?
    Answer. Yes I do, in selected instances. Like other useful 
acquisition concepts, spiral development is not a silver bullet but 
should be in the acquisition system's toolkit.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. I think the answer is mixed. My impression is that some of 
the more successful implementations of evolutionary approaches have 
come recently as a result of rapid fielding necessitated by operations 
in Iraq and Afghanistan. But if not used wisely, the result can be 
added complexity to systems.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. Each of these requirements, budget, and testing processes 
must be flexible enough to accommodate the possibility, where 
appropriate, of applying these acquisition concepts. If confirmed, I 
will seek to ensure this flexibility.
    Question. How should the Department ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. I see this as no different than any other program. If 
confirmed, I would insist that each increment or evolution of 
capability have a baseline for assessing execution performance.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. Yes, I support activities such as Configuration Steering 
Boards that prevent unnecessary changes to program requirements or 
system configuration that could have an adverse impact on program cost 
and/or schedule. In addition, I am aware that Configuration Steering 
Boards are required by section 814 of the National Defense 
Authorization Act for Fiscal Year 2009 and are included within the 
recent update to DOD Instruction 5000.02. If confirmed, I will review 
the Department's implementation of Configuration Steering Boards to 
ensure they are contributing to requirements stability as intended.
    Question. What are your views on multi-year procurements? Under 
what circumstances do you believe they should be used?
    Answer. In general, I favor multi-year procurement strategies if 
they provide savings. Frequently, multi-year procurements can offer 
substantial savings through improved economies in production processes, 
better use of industrial facilities, and a reduction in the 
administrative burden in the placement and administration of contracts. 
There are a number of criteria to be considered in deciding whether a 
program should be considered for multi-year procurement. Among them 
are: savings when compared to the annual contracting methods; validity 
and stability of the mission need; stability of the funding; stability 
of the configuration; associated technical risks; degree of confidence 
in estimates of both contract costs and anticipated savings; and 
promotion of national security.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense multi-
year procurement statute, title 10 U.S.C. Sec. 2306b?
    Answer. There has been much debate over the threshold on the level 
of cost savings that constitutes ``substantial savings.'' It has been 
suggested that the Department needs to raise the bar with regard to the 
amount of savings that are achieved through the use of multi-year 
contracts. I agree that we need to ensure that the savings achieved are 
substantial not only in terms of dollars but also substantial in terms 
of the relative difference in price that we would otherwise pay for an 
annual procurement.
    But I also understand that placing an absolute minimum threshold on 
``substantial savings'' could unnecessarily limit the contracting 
options available and should be evaluated based upon the circumstances 
of each particular proposed program being proffered for multi-year 
procurement.
    Question. Under what circumstances, if any, do you believe that a 
multi-year contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multi-year procurement statute, 
title 10 U.S.C. Sec. 2306b?
    Answer. Additional analysis and careful review of all information 
should be completed when a multi-year contract is being considered for 
use in procuring weapon systems that have unsatisfactory program 
histories but which otherwise comply with the statutory requirements. 
The Department would need to examine very carefully all risk factors to 
determine if a multi-year procurement would be appropriate.
    Question. How would you analyze and evaluate proposals for multi-
year procurement for such programs?
    Answer. The Department would need to examine all risk factors in 
conjunction with the potential for cost savings to determine if multi-
year procurement would be appropriate for a program with an 
unsatisfactory history. If confirmed, I will analyze and evaluate 
proposals for multi-year procurements in accordance with all statutory 
and regulatory requirements and I will ensure that we fully understand 
the benefit to the warfighter and taxpayer to proceed with a multi-year 
procurement for a program with a checkered history.
    Question. If confirmed, what criteria would you apply in 
determining whether procuring such a system under a multi-year contract 
is appropriate and should be proposed to Congress?
    Answer. If confirmed, I will ensure that all of the regulatory and 
statutory requirements are met before proceeding with any multi-year 
procurement.
    Question. Under what circumstances, if any, should DOD ever break a 
multi-year procurement?
    Answer. If the Department has done its job properly, the 
cancellation of a multi-year contract should be a rare event. However, 
there are circumstances under when it could occur. One such event would 
be the failure to fund a program year. Another would be the failure of 
the contractor to perform, which ultimately would lead to a decision to 
terminate for default.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. I understand the Department has implemented numerous 
initiatives focused on improving funding and requirements stability. 
These include: (1) greater upfront planning implicit in the new 
Material Development Decision; (2) the use of Configuration Steering 
Boards; (3) Program Management Agreements to limit requirements 
changes; and (4) competitive prototyping to inform the Department on 
the realism of requirements. I believe these and other Department 
initiatives are sound and I support them. It will take time to show the 
impact of these policies, but lasting change starts with good common-
sense policies that are measurable, enforceable, and widely accepted as 
good policy. If confirmed, I plan to closely monitor the execution of 
these policies and look for other opportunities to improve funding and 
requirements stability.
                          multi-year contracts
    Question. The statement of managers accompanying Section 811 of the 
National Defense Authorization Act for Fiscal Year 2008 addresses the 
requirements for buying major defense systems under multi-year 
contracts as follows: ``The conferees agree that `substantial savings' 
under section 2306b(a)(1) of title 10, U.S.C., means savings that 
exceed 10 percent of the total costs of carrying out the program 
through annual contracts, except that multi-year contracts for major 
systems providing savings estimated at less than 10 percent should only 
be considered if the Department presents an exceptionally strong case 
that the proposal meets the other requirements of section 2306b(a), as 
amended. The conferees agree with a GAO finding that any major system 
that is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multi-year 
procurement contract.''
    If confirmed, under what circumstances, if any, do you anticipate 
that you would support a multi-year contract with expected savings of 
less than 10 percent?
    Answer. Multi-year contracting can provide cost savings, and 
therefore it should be considered as an option to serve the warfighter 
and taxpayer. There has been much debate over the threshold on the 
level of cost savings that constitutes ``substantial savings.'' That 
cost saving can be measured in dollar terms and in price the Department 
would otherwise pay for an annual procurement. If confirmed, I would 
value the flexibility to consider both metrics of cost savings.
    Question. If confirmed, under what circumstances, if any, would you 
support a multi-year contract for a major system at the end of its 
production line?
    Answer. It may be appropriate to consider a program for multi-year 
procurement when it is nearing the end of production. It depends upon 
the circumstances of the particular procurement. Analysis and careful 
review of all information as well as should be completed when a multi-
year contract is being considered.
    continuing competition and organizational conflicts of interest
    Question. The Defense Science Board Task Force on Defense 
Industrial Structure for Transformation recommended last summer that 
``DOD must increase its use of creative competitive acquisition 
strategies, within limited budgets, in order to ensure long-term 
innovation and cost savings, at both prime and critical sub-tier 
elements. Competition would not be required beyond the competitive 
prototype phase, as long as the current producer continuously improves 
performance and lowers cost--but other contractors should always 
represent a credible option if costs rise or performance is 
unacceptable.''
    Do you agree with this recommendation? Do you believe that 
continuing competition is a viable option on MDAPs?
    Answer. Yes, I believe that DOD must increase its use of creative 
competitive acquisition strategies to ensure long-term innovation and 
cost savings. Harnessing the power of competition in some form should 
be a goal on all MDAPs.
    Question. Do you support the use of competitive prototypes for 
MDAPs?
    Answer. Yes, I support competitive prototyping in our MDAPs.
    Question. In your view, has the consolidation of the defense 
industrial base gone too far and undermined competition for defense 
contracts?
    Answer. I understand it is the Department's policy to oppose 
transactions that reduce or eliminate competition and I would implement 
that policy where necessary. Yes, I am concerned about the loss of 
competition caused by consolidation over the last few decades.
    Question. If so, what steps if any can and should DOD take to 
address this issue?
    Answer. The Department continues to discourage mergers and 
acquisitions among defense materiel suppliers that are anti-competitive 
or injurious to national security. If confirmed, I will work to adjust 
DOD transaction evaluation procedures/criteria as appropriate.
    Question. What steps if any do you believe DOD should take to 
address organizational conflicts of interest in MDAPs?
    Answer. Even the perception of an Organizational Conflict of 
Interest (OCI) may taint the integrity of the competitive procurement 
process. I support the requirement in the Federal Acquisition 
Regulation to avoid, neutralize, or mitigate significant potential 
conflicts before contract award.
    Question. What are your views on the lead system integrator 
approach to managing the acquisition of major weapon systems?
    Answer. I do not support the use of lead systems integrators unless 
adequate steps have been taken to ensure that there is no potential for 
conflict of interest. In general, the Department should select 
development contractors to perform substantive development work, rather 
than to perform acquisition functions closely associated with 
inherently governmental functions.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Department on the 
acquisition of major weapon systems?
    Answer. Systems Engineering and Technical Assistance (SETA) support 
contractors are currently a critical component of the Department's 
acquisition workforce. They provide engineering and analysis services 
in a consulting capacity. However, they must be properly utilized and 
not used to perform any inherently governmental functions. If 
confirmed, I will continue the efforts to increase government and FFRDC 
staff support to reduce the reliance on SETA contractors.
    Question. What lines do you believe the Department should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. For acquisition responsibilities, I believe a clear line 
must be drawn such that only government personnel may make value 
judgments that obligate funds and commit the government contractually. 
However, I recognize a number of other important functions within the 
Defense acquisition community must be retained for government-only 
performance. Given the current workforce mix and the level of 
contracted support to acquisition functions, I believe a careful review 
is needed to assess whether the Department has become too dependent on 
contractors in this area. I understand Congress has recently codified a 
definition of inherently governmental functions and required a review 
by the Department. I believe this review provides a mechanism to 
address this important question.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not misuse their access to sensitive and 
proprietary information of DOD and other defense contractors?
    Answer. It is my understanding that USD(AT&L) has issued guidance 
to information assurance and acquisition personnel to ensure strong 
measures are in place at the individual contract level. Because this 
issue is potentially so serious, I intend to review it, if confirmed.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the government or 
potential competitors in the private sector?
    Answer. This is an unacceptable practice, and if confirmed, I will 
review the Department's safeguards against it.
               defense acquisition transformation report
    Question. In February 2007, the Secretary of Defense submitted a 
report to Congress titled: ``Defense Acquisition Transformation Report 
to Congress''.
    If confirmed, to what extent would you support and continue 
implementation of the defense acquisition reform initiatives set forth 
in that report?
    Answer. Acquisition reform will be a priority for me, if I am 
confirmed. In general, I support the majority of the acquisition reform 
initiatives identified in the Report. If confirmed, I will support the 
implementation activities which are already underway and evaluate 
additional ways and means to improve the effectiveness and efficiency 
of the system.
    Question. In particular, please discuss your views regarding the 
following aspects of transformation:
    Portfolio Management.
    Answer. In general, I support the Capability Portfolio Management 
(CPM) Initiative which was is intended to provide an enterprise-level, 
horizontal (cross-component) view of the Department to better balance 
and harmonize joint warfighter capability needs with capability 
development efforts. If confirmed, I will review the CPM construct to 
ensure it enables better-integrated and balanced advice across the full 
spectrum of capability needs to DOD senior leadership.
    Question. Tri-Chair Concept Decision
    Answer. In general, I strongly support efforts that harmonize the 
major Department processes for requirements, resources, and acquisition 
and, if confirmed, will pursue management mechanisms that ensure 
harmonization.
    Question. Time-Defined Acquisitions
    Answer. Time should be a critical element in DOD acquisition 
decisionmaking since in many programs ``time is money,'' and 
emphasizing time forces consideration of material alternatives and 
technologies that can be fielded consistent with user need.
    Question. Investment Balance Reviews
    Answer. The Department should take a holistic approach, assessing 
the opportunities and threats across all the Services, to determine 
where to best focus investment and energy. Investment Balance Reviews 
(IBRs) provide the Defense Acquisition Executive with the opportunity 
to make course corrections during the life cycle of the portfolio of 
capabilities, systems, and programs. If confirmed, I will review this 
initiative for any additional support or direction needed.
    Question. Risk-Based Source Selection
    Answer. The Risk-Based Source Selection concept is intended to 
identify and quantify risk, inform requirements development and cost 
estimation, and improve available information to assess contractor 
proposals. Risk-Based Source Selection techniques enhance the quality 
of requests for proposal by improving technical criteria and making DOD 
a ``smarter'' buyer. It is my understanding that the Department has 
implemented of a series of policy initiatives including: (1) the 
issuance of policy describing the proper use of award fees; (2) the 
establishment of competitive prototyping as the underlying strategy for 
demonstrating the technical maturity of key technologies; (3) the 
requirement to do Preliminary Design Reviews before MSB when consistent 
with the Technology Development Strategy; (4) the requirement to 
conduct peer reviews of source selections to ensure requirements 
traceability and effective source selections; (5) the requirement for 
offerors to substantiate claims of technology maturity as part of their 
proposals for Engineering and Manufacturing Development contracts; and 
(6) a new MDA decision point titled the Post Critical Design Review 
Assessment to assess design maturity. If confirmed, I will review these 
efforts to ascertain whether they can be further strengthened.
    Question. Acquisition of Services Policy
    Answer. It is my understanding that the Department has recently 
issued new policy guidance regarding the Acquisition of Services. It is 
my understanding that this new policy imposes significant changes in 
the way the Department manages and reviews the performance of service 
contracts. If confirmed, I intend to assess such initiatives and 
related policy and make any adjustments necessary to implement the 
President's direction to carry out robust and thorough management and 
oversight of contracts.
    Question. Systems Engineering Excellence
    Answer. Systems engineering is a practice that is critical 
throughout the lifetime of a program and especially in its early 
stages, as recent testimony before this committee has attested. If 
confirmed, I will continue to strengthen early and informed systems 
engineering in both new and current acquisition programs as a clearly 
demonstrated best practice, augmented with a revitalized systems 
engineering workforce to strengthen program management organizations.
    Question. Award Fee and Incentive Policy
    Answer. I support the efforts currently underway to link award fee 
and incentive payments to acquisition outcomes such as cost, schedule, 
and technical performance. If confirmed, I intend to assess such 
initiatives and related policy and make any adjustments necessary to 
ensure that their intended purposes are being met.
    Question. Open, transparent, and common shared data resources with 
Defense Acquisition Management Information Retrieval (DAMIR)
    Answer. DAMIR currently provides enterprise visibility to 
acquisition program information. If confirmed, I intend to evaluate 
current initiatives focusing on implementation of open, transparent, 
and common shared data resources.
    Question. Restructured Defense Acquisition Executive Summary 
Reviews
    Answer. The Defense Acquisition Executive Summary reviews provide a 
forum for OSD to work with the Services and agencies to evaluate 
progress in program execution. In general, I support this initiative 
which is designed to improve decisionmaking, communication, and trust 
between OSD, the Joint Staff, and the Services. If confirmed, I will 
review this initiative for any additional support or direction.
    Question. Policy on Excessive Pass-Through Charges
    Answer. I support the full implementation of section 852 to ensure 
that pass-through charges on contracts or subcontracts that are entered 
into for or on behalf of DOD are not excessive in relation to the cost 
of work performed by the relevant contractor or subcontractor.
    Question. Are there other initiatives or tools discussed in the 
Defense Acquisition Transformation Report that you view as particularly 
likely, or unlikely, to be productive in achieving acquisition reform?
    Answer. I am aware that the final Defense Acquisition 
Transformation Report was recently submitted. The report has identified 
numerous initiatives. If confirmed, I will study all of the report's 
acquisition reform initiatives to determine additional ways and means 
to improve the effectiveness and efficiency of the system.
              operation of the defense acquisition system
    Question. On December 2, 2008, the Department promulgated a new 
version of DOD Instruction 5000.02, the key guidance on the 
Department's acquisition of major weapon systems. The revised 
instruction restructured the management framework for translating 
capability needs and technology opportunities into stable, affordable, 
and well-managed defense acquisition programs.
    What is your assessment of the new version of this instruction and 
the extent of its implementation to date?
    Answer. The new instruction is a constructive step, and if 
confirmed, I will ensure that it is effectively implemented and seek to 
improve upon it.
    Question. If confirmed, what steps would you take to continue 
implementation of the new version of DOD Instruction 5000.2 and improve 
upon it?
    Answer. If confirmed, I intend to monitor the implementation and 
effectiveness of the new policies. If necessary, I will alter these or 
introduce additional policies to ensure that our programs achieve cost, 
schedule, and performance objectives.
                        contracting for services
    Question. Over the past 8 years, DOD's spending on contract 
services has more than doubled, with the estimated number of contractor 
employees working for the Department increasing from an estimated 
730,000 in fiscal year 2000 to an estimated 1,550,000 in fiscal year 
2007. As a result, the Department now spends more for the purchase of 
services than it does for products (including major weapon systems).
    Do you believe that DOD can continue to support this rate of growth 
in its spending on contract services?
    Answer. I am very concerned about this trend. If confirmed, I 
intend to work with Secretary Gates and the Department's senior 
leadership to address the underlying question about whether the Defense 
Department is adequately staffed, quantitatively and qualitatively, to 
carry out its responsibilities. If the Department continues to utilize 
contracted service providers to such a large extent, it is absolutely 
essential we have a sufficient amount of qualified government, 
civilian, or military personnel dedicated to perform meaningful 
oversight of contractor activities.
    Question. Do you believe that the current balance between 
government employees (military and civilian) and contractor employees 
is in the best interests of DOD?
    Answer. DOD requires some mix of Federal employees and contractors 
to carry out its mission effectively, but that mix might be out of 
balance. If confirmed, I would support efforts to help ensure the 
appropriate balance.
    Question. What steps if any would you take, if confirmed, to 
control the Department's spending on contract services?
    Answer. If confirmed, I intend to work with Secretary Gates and the 
Department's senior leadership to assess the amount of spending on 
contracted services, consistent with President Obama's March 4, 2009, 
memorandum on Government Contracting which emphasizes the need to 
ensure best value for the taxpayers.
    Question. At the request of the committee, GAO has compared DOD's 
practices for the management of services contracts to the practices of 
best performers in the private sector. GAO concluded that leading 
companies have achieved significant savings by insisting upon greater 
visibility and management over their services contracts and by 
conducting so-called ``spend'' analyses to find more efficient ways to 
manage their service contractors. Section 801 of the National Defense 
Authorization Act for Fiscal Year 2002 required DOD to move in this 
direction. Sections 807 and 808 of the National Defense Authorization 
Act for Fiscal Year 2008 built on this provision by requiring 
inventories and management reviews of contracts for services.
    Do you believe the Department is providing appropriate stewardship 
over service contracts?
    Answer. I am concerned that in some instances it might not be. I 
understand the Department has recently instituted policy and processes, 
such as peer reviews of significant service acquisitions, to ensure 
taxpayer funds are spent wisely when acquiring contracted services. If 
confirmed, I intend to assess these policies and procedures and make 
any necessary adjustments.
    Question. Do you believe that the Department has appropriate 
management structures in place to oversee the expenditure of more than 
$150 billion a year for contract services?
    Answer. I have not had an opportunity to assess the current 
management structures that are in place, but if confirmed, I will make 
the necessary adjustments to implement President Obama's direction to 
carry out robust and thorough management and oversight of contracts.
    Question. Do you believe that the Department should conduct a 
comprehensive analysis of its spending on contract services, as 
recommended by GAO?
    Answer. Although I am not familiar with the specific GAO 
recommendations regarding a comprehensive spend analysis, I agree with 
its intent. It is also my understanding that the office of the Director 
of Defense Procurement and Strategic Sourcing has completed an 
extensive spend analysis of the Department's spending on services. If 
confirmed, I intend to review this analysis to ensure that the 
Department is effectively implementing cost saving strategies in the 
procurement of services.
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. I fully support the use of management reviews and peer 
reviews of major service contracts to identify ``best practices'' and 
develop lessons learned. If confirmed, I will work with the 
Department's senior leadership to further institutionalize this 
practice and make any necessary adjustments.
    Question. If confirmed, will you fully comply with the requirement 
of section 807 of the National Defense Authorization Act for Fiscal 
Year 2008, to develop an inventory of services performed by contractors 
comparable to the inventories of services performed by Federal 
employees that are already prepared pursuant to the Federal Acquisition 
Inventory Reform (FAIR) Act?
    Answer. If confirmed, I will be committed to actively pursuing the 
continued implementation of section 807 as this legislation establishes 
a solid post-award review process and increased transparency of 
services contracts to Congress, the public, and internally within the 
Department.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Department's management of its contracts for 
services?
    Answer. If confirmed, I will take steps to ensure leaders at all 
levels of the Department understand and appreciate the vital role they 
must play in diligently managing service contracts in a way that 
maximizes the benefit to the warfighter and the taxpayer.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. I am concerned that it may be.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. While I am not specifically aware of the use of personal 
services contracts within the Department, I do know that there are 
statutory restrictions that govern the use of personal services 
contracts. If confirmed, I will ensure that if personal services 
contracts are being used in a manner that is inappropriate, that 
practice is ended immediately.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by government employees?
    Answer. I believe that contractor employees who directly support 
government employees, and may have access to similar business sensitive 
or source selection sensitive information, should be subject to similar 
ethical standards as the government employees they support, and should 
not be allowed to profit personally from the information that may be 
available to them because of their performance under a DOD contract.
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. According to widely published reports, the number of U.S. 
contractor employees in Iraq exceeds the number of U.S. military 
deployed in that country.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. Secretary Gates has tasked the Chairman of the Joint Chiefs 
of Staff to oversee a Department-wide review of contractor roles and 
missions. If confirmed, I will work with the Secretary and Chairman 
Mullen in this review and implement recommendations where appropriate 
and, if necessary, work with Congress to institutionalize reforms.
    Question. What risks do you see in the Department's reliance on 
such contractor support?
    Answer. I see two risks: (1) Fraud, waste, or abuse if there is 
insufficient oversight; and (2) the possibility that contractors could 
choose to leave the mission because it became dangerous or for some 
other reason.
    Question. What steps do you believe the Department should take to 
mitigate such risk?
    Answer. The first step is to have a thorough understanding of any 
risks we have with the current workforce mix of military, civilian, and 
contractors. As mentioned earlier, the study being led by the Joint 
Staff will provide insight into this important issue. Next would be the 
development of a robust capability to provide oversight and management 
of contractor performance and restrictions.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. It is my understanding that there have been shortcomings in 
recent years, and if confirmed, I intend to learn more about them.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. If confirmed, I intend to review this subject and recommend 
stops to ensure that shortcomings are not repeated.
                      private security contractors
    Question. The Special Inspector General for Iraq Reconstruction 
(SIGIR) recently reported that Federal agencies including DOD have 
spent more than $5 billion for private security contractors (PSCs) in 
Iraq since 2003. Over this period, there have been numerous reports of 
abuses by PSCs, including allegations of contractors shooting 
recklessly at civilians as they have driven down the streets of Baghdad 
and other Iraqi cities. In September 2007, employees of Blackwater 
allegedly opened fire on Iraqis at Nisour Square in downtown Baghdad, 
killing more than a dozen Iraqis and wounding many more.
    Do you believe DOD and other Federal agencies should rely upon 
contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. I cannot directly comment on the Blackwater incident as I 
have not had access to information about this case, and in any event I 
understand that it is a State Department issue, presently in the 
Federal courts. But I believe that the use of PSCs, and more generally 
the use of contractors in wartime, deserves careful review.
    As a practical matter, DOD must use the total force (military 
forces, Department civilians, and contractors) to resource the full 
spectrum of requirements. DOD's recent ongoing efforts to perform more 
detailed contractor support planning for all operational plans can 
ensure that the use of PSCs is based upon careful planning and 
assessment and not simply on general assumptions and, if confirmed, I 
will review these plans. If contractor personnel cannot be used 
appropriately, there will be force structure implications which will 
require consideration by Congress.
    Question. In your view, has the U.S. reliance upon PSCs to perform 
such functions risked undermining our defense and foreign policy 
objectives in Iraq?
    Answer. I have not had an opportunity to acquaint myself with the 
facts of this situation, nor to discuss it with DOD leadership, 
military commanders or diplomatic observers. But it is clear that 
appropriate conduct of Americans in the theater, including contractors, 
is important to overall progress in achieving our aims.
    Question. What steps if any would you take, if confirmed, to ensure 
that any PSCs who may continue to operate in an area of combat 
operations act in a responsible manner, consistent with U.S. defense 
and foreign policy objectives?
    Answer. We have learned two important lessons from the current 
operations: First, the use of PSCs in any area of combat operations 
must be fully coordinated. There must be unified and consistent 
procedures for all such contractors, regardless of which U.S. agency 
hires them. Our commanders on the ground must have authority to 
restrict or redirect their operations as the situation requires. 
Second, there must be assured legal accountability for the actions of 
PSCs. If confirmed, I will review further steps that can be taken.
    Question. How do you believe the ongoing operations of PSCs in Iraq 
are likely to be affected by the new Status of Forces Agreement between 
the United States and Iraq?
    Answer. I have not had the opportunity to acquaint myself with all 
the facts bearing on this situation, but if confirmed, I would intend 
to do so. I do understand that since January 1 of this year, U.S. 
Government contractors no longer have immunity from host nation law.
    If confirmed, I would seek to ensure that the loss of contractor 
immunity in Iraq does not diminish the effectiveness of operations.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to PSCs of all Federal agencies?
    Answer. I have not had the opportunity to acquaint myself with the 
practical and legal dimensions of the issue. It is my understanding 
that DOD has consistently supported unambiguous application of the 
Military Extraterritorial Jurisdiction Act to all U.S. Government PSCs 
operating in contingency areas.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of PSCs operating in an 
area of combat operations?
    Answer. I have not had the opportunity to acquaint myself with all 
the practical and legal dimensions of this issue. There must be assured 
legal accountability for the actions of all contractors deployed to an 
area of combat operations. The application of the Uniform Code of 
Military Justice is one tool to do this.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons.''
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. My understanding is that DOD's decision to use PSCs 
(including subcontractors) is in compliance with current U.S. 
Government policy and regulations. It clearly raises issues of 
appropriateness, and if confirmed, I would intend to participate in 
shaping policies regarding the appropriate use of contractors.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. The role of DOD contractors raises issues of 
appropriateness, and if confirmed, I would intend to participate in 
shaping policies regarding the appropriate use of contractors.
    Question. Do you see a need for a comprehensive reevaluation of 
these issues now?
    Answer. I do, and I understand that the Chairman of the Joint 
Chiefs of Staff, as directed by the Secretary of Defense, is already 
conducting a thorough examination of the use of DOD contractors in 
support of current military operations as well as a review of the range 
and depth of contractor capabilities necessary to support the Joint 
Force of the future.
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media.
    In your view, is DOD's use of private contractors to conduct 
information operations through the Iraqi media appropriate?
    Answer. I have not had the opportunity to have access to 
information regarding this matter.
                     government contracting reform
    Question. In a memorandum to the heads of all Federal agencies, the 
President on March 4, 2009, directed a government-wide review of 
contracting procedures and stated that ``executive agencies shall not 
engage in noncompetitive contracts, except in those circumstances where 
their use can be fully justified and where appropriate safeguards have 
been put in place to protect the taxpayer.''
    If confirmed, how would you determine whether the use of 
noncompetitive contracts could be fully justified?
    Answer. If confirmed, I will continue to emphasize the importance 
of competition and review the Department's competition practices. At 
present, it is my understanding that DOD Competition Advocates 
participate in acquisition strategy sessions and are engaged in the 
review of noncompetitive contracts. All noncompetitive contracts must 
be supported by a justification and determination and approved by the 
procuring activity Competition Advocate if over $550,000; the head of 
the procuring activity if over $11.5 million; and the senior 
procurement executive of the agency if over $78.5 million. The DOD 
Competition Advocate submits an annual report on the Department's 
competition achievements to the Office of the Under Secretary of 
Defense for Acquisition, Technology and Logistics. If confirmed, I 
intend to review these practices to ascertain if adjustments are needed 
pursuant to the President's guidance.
    Question. In your opinion, how would the direction in this memo 
affect the use of single-award and multiple-award Indefinite Delivery/
Indefinite Quantity (IDIQ) contracts?
    Answer. I support the direction in the memo emphasizing competition 
and appropriate use of various contract types. An IDIQ contract is 
appropriate for use when the government cannot predetermine the precise 
quantities of supplies or services it will require and it is 
inadvisable to commit the government beyond the more than a minimum 
quantity. The Federal Acquisition Regulation establishes the preference 
for multiple awards when an IDIQ contract is awarded and requires 
approval of the agency head for a single-award IDIQ contract estimated 
to exceed $100 million. It is my understanding that the Department does 
not support the use of single-award IDIQ contracts unless they are 
absolutely necessary. If confirmed, I intend to review these practices 
pursuant to the President's guidance.
                          contracting methods
    Question. The Office of Federal Procurement Policy and DOD have 
long agreed that Federal agencies could achieve significant savings and 
improved performance by moving to performance-based services 
contracting (PBSC). Most recently, the Army Environmental Program 
informed the committee that it has achieved average savings of 27 
percent over a period of several years as a result of moving to fixed-
price, performance-based contracts for environmental remediation. 
Section 802 of the National Defense Authorization Act for Fiscal Year 
2002, as amended, established performance goals for increasing the use 
of PBSC in DOD service contracts.
    What is the status of the Department's efforts to increase the use 
of PBSC in its service contracts?
    Answer. It is my understanding that the preferred approach to 
services contracting within the Department is already to utilize fixed 
price performance based contracts whenever it has well-defined 
statements of work that have clear performance objectives which can be 
measured objectively. The Department continues to emphasize the use of 
this type of contract whenever possible.
    Question. What additional steps if any do you believe the 
Department needs to take to increase the use of PBSC and meet the goals 
established in section 802?
    Answer. If confirmed, I will ensure that a fundamental element of 
our strategic sourcing approach to services contracts will be the 
increased use of performance based fixed price contracts.
    Question. In recent years, DOD has relied heavily on time-and-
materials (T&M) contracts for the acquisition of services. Under such a 
contract, the Department pays a set rate per hour for contractor 
services, rather than paying for specific tasks to be performed. In 
some cases, contractors have substituted less expensive labor under T&M 
contracts, while continuing to charge Federal agencies the same hourly 
rates, resulting in effective contractor profits of 25 percent or more.
    What is your view of the appropriate use of T&M contracts by DOD?
    Answer. T&M contracts, regardless of dollar value, are the least 
preferred contract type and should only be used if no other contract 
type is appropriate. They are a very costly and ineffective method of 
contracting for services. If confirmed, I will ensure appropriate 
determinations are made to only use T&M contracts when no other 
contract will satisfy the requirement.
    Question. What steps if any do you believe the Department should 
take to minimize the abuse of T&M contracts?
    Answer. I understand the Department has taken several steps to 
minimize the abuse of T&M contracts. The Panel on Contracting Integrity 
is reviewing the appropriate approval levels for determinations made by 
contracting officers for use of a T&M contract. Additionally, the 
OUSD(AT&L) requested the military departments and other defense 
agencies review their use of T&M contracts for services and identify 
contracting activities that have executed more than 10 percent of their 
obligations using T&M. DPAP continues to monitor the inappropriate use 
of T&M contract types for services. If confirmed, I will review the 
various initiatives for any additional support or direction needed.
    Question. Section 852 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 requires DOD to promulgate 
regulations prohibiting excessive ``pass-through'' charges on DOD 
contracts. Pass-through charges are charges added by a contractor for 
overhead and profit on work performed by one of its subcontractors, to 
which the contractor provided no added value. In some cases, pass-
through charges have more than doubled the cost of services provided to 
DOD.
    What is your view of the regulations promulgated by DOD to 
implement the requirements of section 852?
    Answer. It is my understanding that the Department issued an 
interim rule amending the Defense Federal Acquisition Regulation 
Supplement to implement Section 852 to ensure that pass-through charges 
on contracts or subcontracts that are entered into for or on behalf of 
DOD are not excessive in relation to the cost of work performed by the 
relevant contractor or subcontractor. The rule provides a list of 
functions that are considered to be value-added. If the contractor does 
not perform the demonstrated functions or does not add value, the rule 
makes the excessive pass-through charges unallowable and provides for 
recoupment of the excessive pass-through charges consistent with the 
legislation. While I have not had the opportunity to analyze this 
matter sufficiently in order to form an opinion, if confirmed, I will 
be receptive to suggested refinements as the case makes its way through 
the Federal rulemaking process.
    Question. What additional steps if any do you believe the 
Department should take to address the problem of excessive pass-through 
charges?
    Answer. Beyond finalization of the DFARS rule and associated 
updates that should be made to Defense Acquisition University training 
curriculum, I understand the Department has incorporated this issue as 
an element to be addressed in Peer Reviews in accordance with Section 
808 of the National Defense Authorization Act for Fiscal Year 2008.
                        interagency contracting
    Question. GAO recently placed interagency contracting--the use by 
one agency of contracts awarded by other agencies--on its list of high-
risk programs and operations. While interagency contracts provide a 
much-needed simplified method for procuring commonly used goods and 
services, GAO has found that the dramatic growth of interagency 
contracts, the failure to clearly allocate responsibility between 
agencies, and the incentives created by fee-for-services arrangements, 
have combined to expose DOD and other Federal agencies to the risk of 
significant abuse and mismanagement. The DOD Inspector General and the 
GSA Inspector General have identified a long series of problems with 
interagency contracts, including lack of acquisition planning, 
inadequate competition, excessive use of time and materials contracts, 
improper use of expired funds, inappropriate expenditures, and failure 
to monitor contractor performance. DOD, in conjunction with the General 
Services Administration and the Office of Management and Budget, is 
taking a number of actions to improve training and guidance on the use 
of this contract approach.
    If confirmed, what steps if any will you take to monitor and 
evaluate the effectiveness of the actions currently underway or planned 
regarding DOD's use of other agencies' contracts?
    Answer. Interagency contracting is a necessity at times to achieve 
``whole of government'' efforts to address complex contemporary 
security challenges, but it must be done in a way that gives best value 
to the taxpayer. If confirmed, I will review the efforts outlined in 
the January 2005 policy on the ``Proper Use of Non-DOD Contracts'' and 
subsequent policy updates. In addition, I understand that as part of 
the Department's strategic spending analysis, DOD is collecting 
adequate data to know what non-DOD agencies are acquiring on behalf of 
DOD and which organizations they are supporting.
    Question. Do you believe additional authority or measures are 
needed to hold DOD or other agency personnel accountable for their use 
of inter-agency contracts?
    Answer. If confirmed, I will review and evaluate these authorities.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by DOD personnel is within the scope 
of their contract?
    Answer. The primary responsibility for ensuring work is within the 
scope of the contract rests with the contracting officer. I believe 
that if a contractor is uncertain whether or not supplies or services 
ordered are within scope of their contract they should consult with the 
contracting officer.
    Question. Do you believe that DOD's continued heavy reliance on 
outside agencies to award and manage contracts on its behalf is a sign 
that the Department has failed to adequately staff its own acquisition 
system?
    Answer. If confirmed, I will examine whether or not the Department 
is adequately staffed to manage and execute these efforts. However, the 
Department should continue to utilize the expertise of non-DOD agencies 
operating under congressional authority to acquire supplies and 
services in the most efficient and effective way possible.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. Yes. The problems suggest the need to move away from large 
business information technology development projects to smaller, more 
incremental business systems developments, utilizing commercial 
applications whenever possible. Existing DOD hardware development 
processes do not always translate effectively in the software 
development world. Finally, DOD frequently needs to do business process 
re-engineering prior to software development so that new development is 
not imposed on legacy systems and processes.
    Question. What steps if any do you believe DOD should take to 
address these problems?
    Answer. If confirmed, I would work with the Chief Information 
Officer and Chief Management Officer to create a set of processes that 
are used in industry to develop, test, and deploy software within DOD's 
regulatory and statutory framework. For example, I would use 
incremental development and limited deployments to get capability out 
to users as well as feedback from users to guide future increments of 
capability.
    Question. If confirmed, how would you work with the Chief 
Information Officer of DOD to take these steps?
    Answer. I would partner with the Chief Information Officer and 
Chief Management Officer to develop best practices for DOD.
    Question. Problems with computer software have caused significant 
delays and cost overruns in a number of major defense programs. Section 
804 of the National Defense Authorization Act for Fiscal Year 2003 
required DOD to establish a program to improve the software acquisition 
process.
    What steps if any would you take, if confirmed, to address delays 
and cost overruns associated with problems in the development of 
software for major weapon systems?
    Answer. If confirmed, I would consider three steps. First, I would 
consider directing that weapon systems use incremental software 
development to minimize risk. Second, I would ensure that software 
embedded in weapon systems be mature before being integrated in 
platforms. Third, I would seek to use independent assessment teams of 
software experts to guide and advise weapon system program managers.
    Question. What role, if any, do you believe that the Chief 
Information Officer of DOD should play with regard to the acquisition 
of information technology that is embedded in weapon systems?
    Answer. The Chief Information Officer would be a key advisor to me 
and the Department in assessing program risk and acquisition strategies 
for development and procurement of embedded information technology.
                         acquisition workforce
    Question. Over the last 15 years, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Since September 11, 2001, moreover, the demands placed on 
that workforce have substantially increased. While DOD has started the 
process of planning its long-term workforce needs, the Department does 
not yet have a comprehensive strategic workforce plan needed to guide 
its efforts.
    Do you believe that DOD's workforce is large enough and has the 
skills needed to perform the tasks assigned to it?
    Answer. I don't believe it is. A number of studies and analyses, 
including by this committee, have pointed in the direction of 
increasing the size of the DOD acquisition workforce and have 
identified certain skill sets that need to be built up.
    Question. In your view, what are the critical skills, capabilities, 
and tools that DOD's workforce needs for the future?
    Answer. Program management, risk management, and leadership are 
critical skills, as are systems engineering and financial management. 
Contracting officers need business acumen and understanding of how to 
formulate, negotiate, and oversee contracts.
    Question. What steps will you take, if confirmed, to ensure that 
the workforce will, in fact, possess them?
    Answer. We need to attract talented people to government service, 
specifically into the acquisition workforce, give them challenging work 
to do, retain the best of them, and be sure all of them are fully 
trained and qualified for the jobs we give them. If confirmed, I will 
want to ensure that the Department has the right infrastructure and 
resources in place to do all that and to improve where we should.
    Question. Do you agree that the Department needs a comprehensive 
human capital plan, including a gap analysis and specific recruiting, 
retention, and training goals, to guide the development of its 
acquisition workforce?
    Answer. Yes.
    Question. What steps if any do you think are necessary to ensure 
that the Department has the ability it needs to attract and retain 
qualified employees to the acquisition workforce?
    Answer. Personally, I can think of nothing more inherently 
rewarding than serving one's country as the men and women of our Armed 
Forces and our civilian employees do. These are dynamic times and the 
approach we take now may be different from what we did in the past or 
may need to do in the future. I'm told that the largest numbers of 
people in the acquisition workforce are engineering, scientific, and 
technical professionals, followed by business-oriented people, such as 
contracting officers. Also, they are largely civilians. They will have 
to be change oriented, because as national strategy evolves, what we 
buy and how we buy will change. To attract and retain them we need to 
provide challenging and rewarding work and a competitive rate of 
compensation. If confirmed, I will do all I can to ensure we have a 
properly sized, highly qualified, professional acquisition workforce.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, prime contractors for this expertise?
    Answer. A number of reports have pointed to this conclusion, and it 
is a disturbing trend. As a policy matter, it is vital that inherently 
governmental functions be performed by government, that is, in this 
instance, by civilian and military members of the DOD acquisition 
workforce. As a practical matter, program formulation, management, and 
contract oversight cannot be done effectively in the interests of both 
the warfighter and the taxpayer unless competent, trained, and 
dedicated government professionals do it. If we have let some of this 
slip away, say in areas like systems engineering and contracting, then 
it is time to reverse the trend, not to the point of eliminating all 
support contractors, but to achieve the proper balance. The first step 
is to understand how many support contractors we have, what they are 
doing, and at what cost. FFRDCs are in a different category since they 
are specifically chartered to assist government professionals and in 
many cases have done so effectively for many years.
    Question. What is the appropriate tenure for program managers and 
program executive officers to ensure continuity in major programs?
    Answer. Program managers and program executive officers need to be 
in their jobs long enough to be accountable for their decisions. These 
jobs are not training grounds or stepping stones to higher levels. 
Those who take them on must be fully qualified experts. I am aware that 
there are statutory tenure minima prescribed for these and other key 
leadership positions, which I support. I believe this may be more an 
issue of compliance than new policy, but it is something I would look 
at, if confirmed.
    Question. Section 852 of the National Defense Authorization Act for 
Fiscal Year 2008 established an Acquisition Workforce Development Fund 
to help DOD address shortcomings in its acquisition workforce. The fund 
would provide a minimum of $3 billion over 6 years for this purpose.
    Do you believe that the Acquisition Workforce Development Fund is 
needed to ensure that DOD has the right number of employees with the 
right skills to run its acquisition programs in the most cost effective 
manner for the taxpayers?
    Answer. Yes, it provides necessary resources to recruit, train, and 
retain the people we need in the acquisition workforce and the 
resources to increase the size of that workforce as appropriate.
    Question. If confirmed, what steps if any will you ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. First, I would review the processes in place to allocate 
that money to the highest needs and I would review the execution of 
funding that has been allocated so far. I cannot say at this point 
what, if any, systemic changes may be needed, but an initiative of this 
magnitude would certainly have my personal attention, and I would 
welcome a continuing dialog with this committee on the matter, if I am 
confirmed.
   procurement fraud, integrity and contractor responsibility issues
    Question. Recent Air Force acquisition scandals have raised 
concerns about the adequacy of existing mechanisms to uphold 
procurement integrity and prevent contract fraud.
    What is your view of the adequacy of the tools and authorities 
available to DOD to ensure that its contractors are responsible and 
have a satisfactory record of integrity and business ethics?
    Answer. I believe that integrity in contracting is an absolute 
obligation to the taxpayer, and confidence in the integrity of DOD 
contracting must be re-established. If confirmed, I intend to assess 
the adequacy of the existing tools and authorities and make any 
necessary adjustments.
    Question. In your view, are current ``revolving door'' statutes 
effective?
    Answer. I understand an interim rule was published in the Federal 
Register in January of this year to strengthen regulatory language 
regarding DOD personnel who accept positions with Defense contractors. 
It is important that the taxpayer have confidence in these practices. 
If confirmed, I will assess the effectiveness of the applicable 
statutes.
    Question. What tools other than law enforcement measures could we 
use to help prevent procurement fraud and ethical misconduct?
    Answer. I understand the Office of the Inspector General and the 
Defense Acquisition University continue to offer additional training 
and awareness presentations on procurement fraud indicators. If 
confirmed, I would seek to identify further tools.
    Question. Are there sufficient enforcement mechanisms to ensure 
compliance with laws and regulations?
    Answer. Under existing laws and regulations, a contractor may be 
suspended or debarred for failure to timely disclose a known violation 
of Federal criminal law in connection with the award or performance of 
any government contract performed by the contractor or a subcontract. 
If confirmed, I will assess the existing enforcement mechanisms to 
determine areas for improvement.
                            ``buy america''
    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years. As a result, there have been 
a number of legislative efforts to place restrictions on the purchase 
of defense products from foreign sources.
    What benefits do you believe the Department obtains from 
international participation in the defense industrial base?
    Answer. I believe international participation in the defense 
industrial base serves to promote the interoperability, 
standardization, and rationalization of the conventional defense 
equipment used by the Armed Forces of the United States and its allies 
and other friendly governments. It also helps to avoid or reduce 
duplication in research and development initiatives. These attributes 
can lead to savings in terms of the time and money needed to develop, 
produce, support, and sustain the materiel needed and used by our 
warfighters. It also helps the Department to achieve the advantages of 
competition in contracting, which includes the ability to obtain world 
class, best value products for our warfighters. Further, international 
participation in the defense industrial base encourages development of 
mutually beneficial industrial linkages that enhance U.S. industry's 
access to global markets and exposes U.S. industry to international 
competition, helping to ensure that U.S. firms remain innovative and 
efficient.
    Question. Under what conditions, if any, would you support the 
imposition of domestic source restrictions for a particular product?
    Answer. In certain instances involving national security or the 
preservation of a key defense technology or production capability, 
domestic source restrictions may be necessary. The Department has (and, 
I understand, has exercised) the authority to ``self-impose'' such 
domestic source restrictions.
    Question. Section 831 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 requires the Secretary of 
Defense to ensure that the United States firms and United States 
employment in the defense sector are not disadvantaged by unilateral 
procurement practices by foreign governments, such as the imposition of 
offset agreements in a manner that undermines the United States 
industrial base.
    What steps if any do you believe the Department should take to 
implement this requirement?
    Answer. Section 831 requires the Secretary of Defense to make every 
effort to ensure that the policies and practices of the Department 
reflect the goal of establishing an equitable trading relationship 
between the United States and its foreign defense trade partners. I 
understand an interagency team composed of the Departments of Defense, 
Labor, Commerce, and State and the U.S. Trade Representative was 
established to consult with other nations about limiting the adverse 
effects of offsets. If confirmed, I would decide on the need for any 
steps to be taken by the Department based on information the team 
provides.
    Question. The Defense Science Board Task Force on ``Defense 
Industrial Structure for Transformation'' found in July 2008 that U.S. 
policy regarding ``Buy America'' and the ``Berry Amendment'' inhibits 
the Nation from gaining the security and economic benefits that could 
be realized from the global marketplace.
    What is your opinion of ``Buy America'' legislation and the ``Berry 
Amendment''?
    Answer. Such restrictions may impede the Department's ability to 
procure world class products and capabilities on a ``best value'' basis 
for our warfighters, and they may impair effective defense cooperation 
with our allies and other friendly governments. For example, such 
restrictions can be inconsistent with supply chain management practices 
of commercial enterprises. This would impede efforts to promote civil-
military integration and to achieve greater reliance on commercial 
solutions to the Department's requirements. It would be a preferable 
alternative to allow the Department to rely on its ability, under 
existing law, to impose source restrictions when necessary. I 
understand that the Department also has authority to restrict 
procurements to domestic sources when it determines that a particular 
domestic industrial capability must be protected. This means the 
Department has the ability to sustain endangered industrial 
capabilities when necessary to protect national security interests and 
to remove the restrictions when no longer needed, thus returning to the 
benefits of competition.
                      the defense industrial base
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. The defense industry is a vital partner to defense, since 
most defense products and services are provided by the private sector. 
Generally, my viewpoint is that our Nation's defense and technology 
industrial base remains the most innovative, reliable, and cost-
effective in the world.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. I support the Department's overall policy to review each 
proposed merger, acquisition, and teaming arrangement on its particular 
merits in the context of the individual market and the changing 
dynamics of that market. I have some concern about the loss of 
competition caused by significant industry consolidation over the last 
decade. If confirmed, I would work with Department leadership to 
evaluate options to address continued consolidation and the flux of the 
competitive environment.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. Generally, I support foreign investment in the defense 
sector. Foreign firms enhance competition which can lower costs of 
specific defense systems as well as provide for them leading edge 
technologies which were developed abroad. In addition, such investment 
in the long-run will increase interoperability between the United 
States and its allies. To be sure, we must ensure that foreign 
investment in the defense sector does not create risks to national 
security.
    Question. What steps if any do you believe DOD should take to 
ensure the continued health of the U.S. defense industry?
    Answer. If confirmed, I would support the Department's strategy to 
rely on market forces to the maximum extent possible to create, shape, 
and sustain the industrial and technological capabilities needed to 
provide for the Nation's defense. However, I think it is also important 
to recognize that the Department (through its budget, acquisition, and 
logistics processes) can create market forces capable of harnessing the 
innovation potential in the industrial/technological base. In addition, 
when it becomes necessary to intervene in the marketplace, the 
Department has tools available which help to focus industry attention 
on critical technology development, accelerate technology insertion 
into manufacturing processes, create or expand critical production 
facilities, and direct production capacity towards meeting the most 
urgent warfighter needs.
                          manufacturing issues
    Question. The recent Defense Science Board (DSB) study on the 
Manufacturing Technology Program made a number of findings and 
recommendations related to the role of manufacturing research and 
capabilities in the development and acquisition of defense systems.
    Have you reviewed the findings of the DSB Task Force on the 
Manufacturing Technology Program?
    Answer. Yes.
    Question. What recommendations from the Task Force do you plan to 
implement?
    Answer. The overarching recommendation of the DSB report was to 
give ``leadership emphasis'' to manufacturing technology. I believe 
strongly in the importance of manufacturing technology as a type of 
technology deserving DOD fostering just as DOD fosters the technologies 
embedded in the manufactured weapons themselves. I also agree that 
manufacturing readiness should be assessed more rigorously before 
programs pass into production.
    Question. What incentives do you plan to use to enhance industry's 
incorporation and utilization of advanced manufacturing processes 
developed under the manufacturing technology program?
    Answer. The Department's competitive solicitation process must 
adequately identify and reward proposers who plan to employ advanced 
manufacturing processes in response to DOD requests for proposals and 
where manufacturing processes are mature and do not present excessive 
risk.
                         science and technology
    Question. What, in your view, is the role and value of S&T programs 
in meeting the Department's transformation goals and in confronting 
irregular, catastrophic, traditional, and disruptive threats?
    Answer. I believe S&T plays a large role in shaping the future 
direction of DOD as the Department takes on the challenge of 
accomplishing an expanded range of missions. The content of a S&T 
program needed to address these future challenges is likely different 
than in the past. The threats to our national security have expanded to 
cyberspace as well as physical space. Just as S&T gave us the world's 
most capable military at the end of the Cold War, we need S&T to 
provide answers for tomorrow's fight.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Department's long-term research 
efforts?
    Answer. I am aware that Secretary Gates has made, in particular, 
basic research a priority--increasing funding by about $300 million in 
fiscal year 2009. If confirmed, I will carefully review all funding 
portfolios; then assess the relative merits and targets.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Department is making adequate investments in its 
basic research programs?
    Answer. There are a number of metrics to assess whether the 
Department is making an adequate investment in basic research. None of 
these provide a binary yes or no answer. By definition, basic research 
is long-term, and not measureable credibly with short-term metrics. The 
Department needs to assess a number of factors, to include growth or 
decline in real dollars of the basic research program; change in number 
of projects; proportion of DOD-funded researchers in key science 
disciplines; and number of students supported by the basic research 
program investments. While these metrics offer insight, if confirmed, I 
will need to work closely with the Director, Defense Research and 
Engineering before defining specific metrics.
    Question. Do you feel that there is sufficient coordination between 
and among the S&T programs of the Military Services and defense 
agencies?
    Answer. I am aware that there are coordination mechanisms in place 
for the Department's S&T program. If confirmed, I would look at this 
issue more closely to determine if current coordination is adequate.
    Question. What is the Department's role and responsibility in 
addressing national issues related to science, technology, engineering, 
and mathematics (STEM) education and workforce development?
    Answer. The Department must take a pro-active role in ensuring that 
the Nation has an adequate STEM workforce. In addition to encouraging 
STEM workforce development through its research investments and 
education outreach efforts, I believe DOD needs to work closely with 
the Office of Science and Technology Policy, the National Science 
Foundation, and other Federal components involved in national security, 
to generate a ``whole of government'' approach to workforce 
development.
    Question. What steps if any would you take to support efforts to 
ensure that the Nation has the scientific and technical workforce 
needed for its national security technological and industrial base?
    Answer. I am aware of several activities within DOD, such as the 
National Defense Education Program and the National Security Science 
and Engineering Fellows program, that aim to expand the pool of 
scientists and engineers able to contribute to the national security 
technological and industrial base. If confirmed, one of the first steps 
I would take would be to direct the DDR&E to determine how well these 
programs and others like them meet the Department's S&T workforce 
needs.
    Question. How would you use S&T programs to better reduce technical 
risk and therefore potentially reduce costs and schedule problems that 
accrue in large acquisition programs?
    Answer. S&T programs, particularly in Budget Activities 2 (Applied 
Research) and 3 (Advanced Development) can have substantial impact on 
improving technology readiness, and thereby reduce technical risk. I 
believe there is an opportunity to expand the ties from BA2 and BA3 
programs to large acquisition programs, particularly between Milestones 
A and B.
    Question. Do you feel that the S&T programs of DOD are too near-
term focus and have over emphasized technology transition efforts over 
investing in revolutionary and innovative research programs?
    Answer. If confirmed, I will look at the balance of near- and far-
term innovative research. The DOD S&T program should be balanced so 
there are opportunities for both capabilities pull, responding to the 
warfighter's needs, and technology push, responding to the promise of 
new technology. The Under Secretary for AT&L has the responsibility of 
helping to shape and focus the portfolio, and if confirmed, I will rely 
on the DDR&E to advise me on how to discharge this responsibility.
    Question. Are you satisfied that the Department has a well 
articulated and actionable S&T strategic plan?
    Answer. I know the Department has a recent Research and Engineering 
Strategic Plan, published in 2007, and that each of the military 
Services and agencies that conduct research publish strategic plans 
that are harmonized with the DDR&E plan. If confirmed, I will ensure 
the plans have clear and actionable guidance.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure and ethics 
requirements, to ensure that the Department can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. I believe any modern enterprise needs effective tools, to 
shape the workforce and attract the most capable people. This principle 
holds true for the Department. Various recent studies indicate that the 
Department has difficulty competing with the private sector for 
technically capable staff. I will take all possible steps to ensure the 
Department is competitive.
    Question. The DDR&E has been designated as the Chief Technology 
Officer of DOD.
    In your view, what is the appropriate role of the Chief Technology 
Officer of DOD?
    Answer. The role of the Chief Technology Officer of the Department 
is defined in the DDR&E charter. The charter defines the role of the 
DDR&E as the Principal Staff Assistant to the Under Secretary (AT&L) 
and the Secretary on all technical matters. The DDR&E should provide 
guidance to shape the DOD S&T program and develop technology options 
for the Department. The CTO should also contribute significantly to 
ensuring that major acquisition programs are conducted with acceptable 
technological risk
    Question. What authority should the DDR&E have over the Defense 
Advanced Research Projects Agency (DARPA)?
    Answer. As the Department's primary corporate research activity, 
DARPA reports to DDR&E. The DDR&E should have all authorities necessary 
to ensure DARPA is effective in meeting its mission, including 
budgetary authority and authority over selection of agency leadership.
    Question. What authority should the DDR&E have over other Service 
and agency S&T efforts?
    Answer. The DDR&E should provide oversight responsibilities of the 
Service and agency programs, consistent with the DDR&E charter.
    Question. Do you see the need for any changes in organizational 
structure, workforce, or availability of resources to improve the 
effectiveness of the Office of the Director of Defense Research and 
Engineering?
    Answer. I believe S&T is critical to maintaining military 
superiority across a broad range of crises and military operations. 
Ensuring the technological superiority of our Armed Forces will require 
a strong DDR&E. If confirmed, I will take any steps I determine 
necessary for a strong DDR&E.
                          defense laboratories
    Question. What is your view on the quality of the DOD laboratories 
as compared to the DOE national laboratories, Federal laboratories, 
academic laboratories, and other peer institutions?
    Answer. The DOD laboratories employ a talented and mission-oriented 
workforce, and constitute an important departmental resource for the 
Nation's national security. That said, I am certain they can be 
improved. If confirmed, I will place priority in examining the 
capabilities and long-term requirements of the DOD laboratories, and 
develop, with the Services, a plan to address the role of the DOD 
laboratories.
    Question. What metrics will you use, if confirmed, to evaluate the 
effectiveness, competitiveness, and scientific vitality of the DOD 
laboratories?
    Answer. The effectiveness, competitiveness, and scientific vitality 
of the DOD laboratories are gauged by a combination of factors, 
including external review of their research programs and the Service 
parent organizations' assessment of their effectiveness in meeting 
Service requirements and other needs. These in turn are influenced by 
the ability to attract and retain a talented workforce, and the 
adequacy and robustness of their physical infrastructure. I believe 
collaboration with universities, industry, and other laboratories also 
constitute an important contributor and measure of our laboratories' 
effectiveness in fostering and recognizing world class research and 
development.
    Question. What steps if any will you take, if confirmed, to 
increase the mission effectiveness and productivity of the DOD 
laboratories?
    Answer. If confirmed, I will work with the DDR&E to ensure that DOD 
labs operate at maximum effectiveness and productivity.
    Question. Do you see value in enhancing the level of technical 
collaboration between the DOD laboratories and academic, other Federal 
and industrial scientific organizations?
    Answer. Yes. The effectiveness and competitiveness of our 
laboratories can only be helped by enhanced technical collaboration 
with other research and development organizations.
    Question. Do you feel that past investments in research equipment; 
sustainment, repair and modernization; and facility construction at the 
DOD laboratories have been sufficient to maintain their mission 
effectiveness and their standing as world class science and engineering 
institutions?
    Answer. I believe that in some S&T areas that are key to defense, 
DOD laboratories are at the cutting edge. If confirmed, I will assess 
what they need to retain this standing.
                                 darpa
    Question. What is the relationship between the DARPA and the DDR&E?
    Answer. DDR&E is the Department's Chief Technology Officer 
responsible for ensuring the technological strength that undergirds our 
defense and overseeing all of the Department's technical activities. 
DARPA is the Department's primary corporate research agency, fulfilling 
a crucial role complementary with the Military Services' and agencies' 
research efforts. The DARPA director reports to the DDR&E.
    Question. Has DARPA struck an appropriate balance between 
investments in near-term technology programs that are tied to current 
battlefield needs and investments in longer term, higher risk, and 
revolutionary capability development?
    Answer. Since its inception in the late 1950s, DARPA has led the 
Department and this Nation in long-term, high-risk/high-payoff 
research, resulting in numerous revolutionary force-multiplier 
advantages for our warfighters. I am strongly committed to ensuring 
that DARPA maintains and enhances the leadership role it has 
established over decades, and that it strikes the right balance between 
near-term and far-term efforts.
    Question. Do you feel that DARPA has adequately invested in the 
academic research community?
    Answer. Many, if not most, of the revolutionary S&T advances of the 
future will likely arise from academic research conducted in America's 
outstanding universities, and from the spin-off companies that 
universities often foster. It is important for DOD's entire S&T 
enterprise, including DARPA, to nurture and encourage academic 
research.
    Question. What are the major issues related to DARPA investments, 
management, and research outcomes that you will seek to address?
    Answer. I believe that it is important for DARPA to pursue a 
portfolio of research investments that offer promise of future 
revolutionary warfighting advantage. DARPA must hire the most 
technologically advanced, creative, and innovative staff that our 
Nation can offer. DARPA must empower its workforce to think ``out-of-
the-box,'' to engage energetically with the brightest minds in the 
United States and abroad, regardless of nationality.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Department's acquisition programs?
    Answer. In general, I believe an independent Director of 
Operational Test and Evaluation provides a valuable perspective on 
whether the Department's weapon systems are operationally effective and 
suitable. The Operational Evaluation, a validation of the developed 
system's ability to improve the warfighter's capability, is an 
essential input to any decisions on investing in the full production of 
new systems. It is however often too late in the acquisition cycle to 
influence design and development. That's the role of the systems 
engineers and developmental testers. Developmental testing is the 
verification half of systems engineering. If confirmed, I also intend 
to examine the independence and resourcing of developmental testing.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. In general, I believe contractors are an important and 
integral part of the test and evaluation process during system 
development. In the past era of acquisition reform the Department may 
have delegated too much of the early developmental test and evaluations 
to the contractors without adequate government participation or 
oversight. If confirmed, my emphasis will be on integrating contractor 
and government test efforts.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process?
    Answer. Rapid fielding requirements require rapid performance from 
the entire acquisition team, including the test and evaluation 
community. With a rapid fielding requirement, it is necessary to adjust 
the scope and amount of testing to address the key issues and risks 
that affect the system's use in combat and gain early insights into the 
capabilities and limitations of the system being acquired. In rapid 
fielding, particularly of commercial items, the focus needs to be on 
understanding what we're buying, not whether the system meets a set of 
rigid requirements. If confirmed, I will work with all stakeholders to 
ensure testing processes support rapid fielding without delaying our 
response to these urgent requirements.
    Question. If confirmed, how will you work to ensure that all 
equipment and technology that is deployed to warfighters is subject to 
appropriate operational testing?
    Answer. All equipment and technology acquired by the Department 
should be subject to robust Systems Engineering, comprehensive 
Developmental Test and Evaluation, and realistic Operational Test and 
Evaluation. If confirmed, I would enforce existing acquisition policies 
regarding these processes and where necessary amend them.
    Question. Do you believe that the developmental testing 
organizations in DOD and the Military Services are adequate to ensure 
an appropriate level of developmental testing, and testing oversight, 
on major defense acquisition programs?
    Answer. I believe the Department needs to improve the adequacy of 
the developmental testing organizations in DOD and the Services. If 
confirmed, I will look at the entire acquisition organization, 
including Developmental Test and Evaluation and make changes as 
necessary to best accomplish the mission.
    Question. The National Defense Authorization Act (NDAA) for Fiscal 
Year 2003 included several provisions to improve the management of DOD 
test and evaluation facilities.
    Are you satisfied with the manner in which these provisions have 
been implemented?
    Answer. Yes. The language in the NDAA for Fiscal Year 2003 led to 
the establishment of the Defense Test Resource Management Center 
(TRMC). The TRMC's mission is to plan for and assess the adequacy of 
the Major Range and Test Facility Base (MRTFB). Two key provisions of 
that legislation included the TRMC's requirement to develop the 
Department's Strategic Plan for T&E Resources and to certify the 
adequacy of Service and Agency Test and Evaluation budgets. If 
confirmed, I will review the adequacy of the Department's responses to 
these mandates.
    Question. Do you believe that the Department should take any 
additional steps to improve the management of its test and evaluation 
facilities?
    Answer. If confirmed, I will review this matter and make changes 
where necessary and in consultation with Congress.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate them becomes 
more difficult. Some systems-of-systems cannot be tested as a whole 
until they are already bought and fielded.
    Are you concerned with DOD's ability to test these new types of 
systems?
    Answer. Absolutely, testing and developing software-intensive 
programs in a net-centric, systems-of-systems (SoS) environment is 
indeed a challenge.
                       ballistic missile defense
    Question. When it was created in 2002, the Missile Defense Agency 
(MDA) was exempted from normal acquisition rules and processes in order 
to field an initial set of missile defense capabilities on an expedited 
basis. That fielding has now taken place, although numerous upgrades 
and corrections are being implemented. Each of the elements of the 
Ballistic Missile Defense System (BMDS) would normally meet the 
criteria for an MDAP, but none of them has been managed as an MDAP. 
Furthermore, for most of MDA's existence, all its programs were funded 
with Research, Development, Test, and Evaluation (RDT&E) funds, even 
for non-RDT&E activities.
    What management and acquisition changes or improvements if any do 
you believe are warranted for the ballistic missile defense programs?
    Answer. I expect missile defense to be addressed as part of the 
upcoming Quadrennial Defense Review as well as the congressionally-
mandated Ballistic Missile Defense Policy and Strategy review. In 
concert with those policy reviews and if confirmed, I will review 
existing DOD acquisition policies and procedures related to developing 
and fielding ballistic missile defense capabilities to ensure 
appropriate acquisition processes are in place.
    Question. Do you believe that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics should have the same 
responsibilities relative to the ballistic missile defense acquisition 
programs as for all other MDAPs?
    Answer. I believe that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, as the Department's senior 
acquisition executive, should have the same responsibilities, within 
the current departmental guidance, for all MDAPs, regardless of the 
capability being acquired.
    Question. If confirmed, what steps if any would you plan to take to 
ensure that the ballistic missile defense programs of DOD follow sound 
acquisition and management practices and processes?
    Answer. I understand that the Missile Defense Executive Board 
(MDEB) has been the forum for the last 2 years for senior departmental 
review of MDA activity. If confirmed, I would review within the MDEB, 
efforts to maintain regular oversight of the MDA acquisition and 
management practices.
    Question. For many years, DOD and Congress have agreed on the 
principle that major weapon systems should be operationally effective, 
suitable, survivable, cost-effective, affordable, and should address a 
credible threat.
    Do you agree that any ballistic missile defense systems that we 
deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes.
    Question. If confirmed, what steps if any would you take to ensure 
that the BMDS and each of its elements meet these criteria?
    Answer. Rigorous and realistic testing of missile defenses is 
imperative. I understand that the MDA presently is executing a plan 
which includes the use of a Development/Operational Testing approach 
that allows the U.S. Strategic Command warfighter community (which 
includes all combatant commanders) and all the Service Operational Test 
Agencies to be integral parts of the test program. If confirmed, I 
would need to review these plans and the proposed test activities to 
determine whether additional steps or other emphases are necessary or 
appropriate.
    Question. Today, there are many hundreds of short- and medium-range 
ballistic missiles that can reach forward-deployed U.S. military 
forces, allies, and other friendly nations. A Joint Staff study, the 
Joint Capabilities Mix study, has repeatedly concluded that the United 
States needs about twice as many Standard Missile 3 (SM-3) and Terminal 
High Altitude Area Defense (THAAD) interceptors just to achieve the 
minimum inventory needs of regional combatant commanders to defend 
against such threats.
    Do you agree that U.S. missile defense efforts should be 
prioritized on providing effective defenses against existing ballistic 
missile threats, especially the many hundreds of short- and medium-
range ballistic missiles that are currently within range of our 
forward-based forces, allies, and other friendly nations?
    Answer. If confirmed, I will review the balance among the elements 
of the ballistic missile defense program.
    Question. What do you believe should be the appropriate role of the 
combatant commanders and the military in determining requirements, 
force structure, and inventory levels for ballistic missile defense 
forces?
    Answer. Combatant commanders are the ultimate employers of the 
capabilities that the acquisition community delivers. As such, they 
should have a voice in determining their priorities for requirements, 
force structure, and necessary inventory levels. Title 10 provides for 
the military departments to have responsibility to organize, train, and 
equip the forces employed by the COCOMs. MDA serves as the materiel 
developer for ballistic missile defenses and as such has a role in 
determining what capabilities are achievable and what inventory 
quantities are feasible at what cost. These three roles are 
interdependent. If confirmed, I will review existing policies and 
procedures to ensure they are transparent and provide the capabilities 
required at the best value to the taxpayer.
    Question. For many years, Congress and DOD have agreed on the 
principle of ``fly before you buy,'' namely demonstrating that a weapon 
system will work in an operationally effective, suitable, and 
survivable manner before deciding to acquire and deploy such systems. 
This demonstration requires rigorous, operationally realistic testing, 
including independent Operational Test and Evaluation (OT&E), to 
provide an accurate assessment of how weapon systems will perform in 
combat conditions. The Director of Operational Test and Evaluation 
(DOT&E) has expressed concerns that the testing of the Ground-based 
Midcourse Defense (GMD) system has not been sufficient to provide 
confidence in its operational capability.
    Do you agree that ballistic missile defense testing needs to be 
operationally realistic, and should include OT&E, in order to assess 
operational capabilities and limitations of ballistic missile defense 
systems, prior to making decisions to deploy such systems?
    Answer. I agree that operationally realistic testing is imperative, 
and if confirmed, I will review MDA's test plans and practices to 
ensure that they satisfy this imperative.
    Question. If confirmed, what steps if any would you take to ensure 
that the BMDS, and each of its elements, undergoes independent OT&E?
    Answer. If confirmed, I will work with the MDA and the DOT&E to see 
what testing is planned and eliminate any shortcomings.
    Question. The MDA has developed ballistic missile defense systems 
and capabilities and procured the initial inventories of missile 
defense element weapon systems. However, the military departments are 
notionally intended to procure, operate, and sustain these missile 
defense systems.
    What do you believe is the appropriate role for the military 
departments in the procurement, operation, and sustainment of ballistic 
missile defense systems, and at what point do you believe these systems 
should be transitioned and transferred to the military departments?
    Answer. I understand the MDA and the military departments are in 
the process of preparing overarching and element-specific Memorandum of 
Agreements to define responsibilities and relationships in preparation 
for Ballistic Missile Defense System (BMDS) operations and deployment. 
If confirmed, I will work with the MDA and the military departments to 
ensure processes and policies are in place to accomplish the transition 
and transfer in a timely manner and within budget.
                        nuclear weapons council
    Question. If confirmed as USD(ATL), you will chair the Nuclear 
Weapons Council (NWC).
    In your view, what are, or should be, the highest priorities of the 
NWC?
    Answer. If confirmed, I will carry out all of the NWC 
responsibilities listed under section 179, title 10, U.S.C. In my view, 
the highest priority of the NWC is to ensure the safety, security, and 
reliability of our nuclear weapons stockpile.
    Question. What improvements, if any, do you believe should be made 
to the operations of the NWC?
    Answer. If confirmed, I will work with the Secretary of Defense, 
the Deputy Secretary of Defense, as well as members of the NWC, to 
identify improvements, if any, that would further the goals of the NWC. 
These may include recommendations from the recent Schlesinger 
Commission report.
    Question. What role do you expect to play, if confirmed, in the 
development of the Nuclear Posture Review?
    Answer. If confirmed, I will be closely involved, along with the 
appropriate agencies and departments, in both the development and the 
review of the NPR.
                        logistics and readiness
    Question. If confirmed as USD(ATL), what steps if any would you 
take to ensure that life cycle maintenance requirements and sustainment 
support are considered in the acquisition process for new DOD systems?
    Answer. Reliability, availability, and maintainability must be 
designed in early-on in the acquisition process for our weapon systems 
to provide the best value to the warfighter and taxpayer. DOD is 
pursuing several acquisition reforms to ensure the acquisition process 
maintains a life cycle management perspective, maximizes materiel 
availability for the warfighter, and controls operations and support 
costs. If confirmed, I will review and if necessary adjust these reform 
measures.
    Question. Section 332 of the National Defense Authorization Act for 
Fiscal Year 2009 requires DOD to conduct life-cycle cost analysis for 
new capabilities including the fully burdened cost of fuel (FBCF) 
during the analysis and evaluation of alternatives in the acquisition 
program design trades.
    Do you believe that the FBCF is an appropriate factor for the 
Department to consider in the evaluation of acquisition alternatives?
    Answer. Absolutely yes. The FBCF serves as a means to address 
future systems energy demand within the Department's key business 
processes (force planning, requirements development, and acquisition). 
By properly valuing the ``burden'' of fuel delivery in systems 
development, the FBCF allows a more realistic examination of 
departmental costs in terms of operational effectiveness, force 
structure, and operating budget.
    Question. What steps if any will you take, if confirmed, to ensure 
that the DOD complies with the requirements of section 332?
    Answer. My understanding is that work associated with 
institutionalizing the FBCF factor is underway within the Department. 
If confirmed, I will review this work and institute appropriate 
improvements.
    Question. With persistent combat operations in Iraq, Afghanistan, 
and around the globe, combat service support units are constantly at 
risk when transporting supplies.
    What role do you believe the USD(ATL) should play in developing 
strategies to reduce the logistical footprint of deployed units 
operating in hostile environments?
    Answer. Logistics footprint is a multifaceted issue which is based 
on the mission, the force structure, the environment, the weapons 
systems deployed, and the capacity and security of our lines of 
communication. If confirmed, my office, in conjunction with U.S. 
Transportation Command, the Defense Logistics Agency, the Joint Staff, 
and the military Services should continue to focus on managing the 
logistics footprint required to sustain the force in any theater of 
operation. In the long-term, we must ensure the best possible 
sustainability, maintainability, reliability, and fuel efficiency of 
our weapon systems in the acquisition process as a way of lowering the 
footprint needed to maintain those systems.
    Question. Sections 333 and 334 of the National Defense 
Authorization Act for Fiscal Year 2009 direct DOD to conduct studies on 
renewable energy sources such as wind and solar power and on the 
reduction of life-cycle emissions of alternative and synthetic fuels.
    What is your view of the role that the USD(ATL) should play in 
developing and pursuing alternative energy sources for DOD?
    Answer. Since sections 333 and 334 of the National Defense 
Authorization Act of Fiscal Year 2009 direct DOD to conduct studies on 
renewable energy sources and the reduction of life cycle emissions on 
alternative and synthetic fuels, I believe it prudent to determine the 
status of those studies before formulating a specific approach. I do 
believe the goals and intents of energy efficiency and renewable 
sources of energy may be consistent with operational effectiveness. If 
so, and if confirmed, I will ensure we establish the right research, 
prototyping, acquisition, and sustainment for a stable energy program.
    Question. What steps if any will you take, if confirmed, to makes 
sure that DOD complies with the requirements of sections 333 and 334?
    Answer. If confirmed, I expect the Office of the USD(AT&L) to 
comply with statutory requirements. I will investigate the process we 
have in place to track progress against all statutory requirements, to 
include sections 333 and 334.
    Question. Do you foresee a significant role for the use of solar 
and wind energy systems with deployed units operating in remote 
environments?
    Answer. I think it is too early to determine if renewable energy 
systems will play a significant role in meeting deployed unit 
requirements. What I am comfortable in committing to is within the 
roles and responsibilities of the office for which I am nominated, to 
reduce the risk to deployed American forces and systems. If solar and 
wind energy can help meet that goal, we will do what can to accelerate 
their fielding.
                     base realignments and closures
    Question. GAO released a report in January 2009 regarding DOD's 
implementation of the decisions contained in the 2005 Defense Base 
Realignment and Closure (BRAC) round. In the report, GAO described 
several significant challenges which may impact the Department's 
ability to complete BRAC implementation by the statutory deadline of 
September 15, 2011.
    If confirmed, will you be committed to meet the statutory goal for 
BRAC implementation?
    Answer. Yes.
    Question. In your opinion, what measures will you need to undertake 
to assist the Services to complete their BRAC actions on time?
    Answer. The Department will need detailed business plans with cost 
and savings estimates to govern BRAC implementation and will need to 
apply the necessary resources to meet the statutory BRAC implementation 
deadline. If confirmed, I will do so to ensure that the statutory 
deadline can be met.
    Question. Regarding policies related to the disposal of property at 
closed installations, currently, the Department is encouraged to obtain 
fair market value for excess property not required by the Federal 
Government. Funds obtained for this property are used to augment 
appropriated funds for the environmental clean-up of other DOD property 
to be disposed. DOD is also authorized to convey property to local 
redevelopment agencies for little or no consideration in order to 
facilitate economic recovery and development.
    In light of current economic conditions, do you see a need for the 
Department to reassess its policy on the need to seek fair market value 
in all cases? If so, what changes would you propose to this policy?
    Answer. I understand that the Department has a broad range of 
authorities under which it may convey surplus property at closed 
installations, and I believe this flexibility is important. These 
authorities give the Department the flexibility to address the wide 
range of circumstances encountered at communities that have hosted 
closing installations. If confirmed, I will ensure the Department 
properly considers all relevant factors when selecting the appropriate 
property disposal method.
    Question. In your opinion, does the current BRAC law authorize the 
Department to carry out property disposals for no consideration or 
consideration at less than fair market value? If not, what changes 
would you propose to the BRAC law?
    Answer. Current BRAC law authorizes the Department to dispose of 
property using a variety of conveyance methods. Some of those 
conveyance methods involve payment of consideration, and some may be at 
no-cost. These conveyance authorities provide flexibility to address 
the wide range of circumstances encountered at communities that have 
hosted closing installations. If confirmed, I will ensure the 
Department properly considers all relevant factors when selecting the 
appropriate property disposal method.
    Question. Many communities around the country affected by 
significant increases in populations at military bases have asked for 
financial assistance from the Federal Government to fund improvements 
or construction of local schools, transportation, utilities, ports, and 
other infrastructure.
    What is your opinion about using funds appropriated to the DOD to 
pay for these types of projects in local communities?
    Answer. Law and executive order direct the domestic Federal 
agencies to work with DOD and support a program of economic adjustment 
assistance for affected communities, workers, and businesses. If 
confirmed, I will review what can be done to ensure our cognizant 
Federal partners [U.S. Departments of Commerce (Economic Development 
Administration), Labor (Employment and Training Administration), 
Education, Transportation, and Agriculture (Rural Development 
Administration)] are supporting these efforts as intended. At the same 
time, I will review the status of these efforts, including the possible 
use of DOD appropriated funds beyond the State and local organizing and 
planning activities these funds have supported to date.
    Question. If confirmed, how would you propose working with local 
communities to address their concerns about adequate support for 
military members and their families?
    Answer. Across the Department, numerous components have 
responsibilities for working with and assisting these areas, including 
the Office of Economic Adjustment (OEA). If confirmed, I would review 
these interfaces to ensure we are appropriately structured for 
assisting these needs and optimizing our resources. This effort would 
take OEA's efforts to date with these affected States, communities, 
installations, and servicemembers into account. Additionally, I would 
work within the administration to effectively implement the statutory 
and executive order direction for the cognizant Federal agencies to 
afford priority consideration to requests from Defense-affected 
communities for Federal technical assistance and financial resources.
                         environmental security
    Question. If confirmed, you will be responsible for environmental 
security for DOD.
    What do you see as the most significant challenges facing the 
Department in the area of environmental security?
    Answer. Environmental issues are an area of great importance to the 
Department. One of the Department's challenges is environmental 
sustainability, evident in the energy, environment, safety, and 
occupational health issues in its operations. The Department must also 
address these issues in a fiscally responsible manner.
    Question. Assuming you are confirmed, what plans if any do you have 
for addressing these challenges?
    Answer. To address these challenges, if confirmed, I will ensure 
collaboration among DOD, State and local governments, non-governmental 
organizations, other Federal agencies, industry, and academia to 
provide better tools and policies for life-cycle cost and 
sustainability analyses. I will promote decisions that are based on the 
best science available at the time, while recognizing that the 
Department must adapt to changing events, technology, and emerging 
requirements.
    Question. The Department of Justice recently concluded that the DOD 
must comply with clean-up orders from the Environmental Protection 
Agency (EPA).
    What steps if any do you plan to take, if confirmed, in response to 
this determination?
    Answer. It is my understanding that the Department has responded 
that it will comply with these orders and EPA and DOD have agreed to 
finalize interagency agreements required under the main cleanup law, 
the Comprehensive Environmental Response Compensation and Liability 
Act, to replace these orders. If confirmed, I will ensure that DOD 
continues to keep its primary focus on the Department's responsibility 
to ensure cleanup actions are promptly and cost effectively taken to 
protect human health and the environment.
    Question. Unexploded ordnance (UXO) remains a problem at many 
current and former DOD sites. Sections 311 and 313 of the National 
Defense Authorization Act for Fiscal Year 2002 and section 313 of the 
John Warner National Defense Authorization Act for Fiscal Year 2007 
required DOD to develop and implement plans for the remediation of UXO 
at such sites. However, the Department has yet to develop comprehensive 
plans and request adequate funding to comply with these requirements.
    If confirmed, what steps if any would you take to address the UXO 
issue?
    Answer. The Department has made significant efforts with all 
stakeholders to update the inventory of the Munitions Response Sites 
(MRSs), prioritize all the MRSs in the inventory with stakeholder input 
and measure progress though established performance goals and metrics. 
I will look into it further, if I am confirmed.
    Question. What steps if any do you believe are needed to ensure 
that the UXO program receives adequate funding and makes meaningful 
progress in the detection and clearance of UXO?
    Answer. The first step is to refine estimates for remediation of 
MRSs, including estimation of future costs and activities. This will be 
the key for both planning and execution for MRS remediation and will 
enable the Department to implement the predictable funding levels 
required for effective program execution in a fiscally responsible 
manner.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(ATL)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                                 darfur
    1. Senator Reed. Dr. Carter, in 2007 Congress passed the Sudan 
Accountability and Divestment Act. An important provision of this act 
prohibits companies engaged in restricted business operations in Sudan 
from contracting with the U.S. Government. Recently, it has been 
learned that certain prohibited companies have been contracting with 
the Government, particularly with the Department of Defense (DOD). What 
steps will you take to ensure that DOD is not negotiating contracts 
with these prohibited companies?
    Dr. Carter. I understand the Government implemented the Sudan 
Accountability and Divestment Act as an interim rule in the Federal 
Acquisition Regulation on June 12, 2008. Effective that date, this rule 
requires each solicitation for the acquisition of products or services 
(other than commercial items) must include a provision that requires 
each offeror to certify that it does not conduct any restricted 
business operations in Sudan. Upon the determination of a false 
certification, the contracting officer may terminate the contract; the 
suspending official may suspend the contractor; and the debarring 
official may debar the contractor for a period not to exceed 3 years. 
The President may waive the requirement on a case-by-case basis if the 
President determines and certifies in writing to the appropriate 
congressional committees that it is in the national interest to do so. 
I am unaware of any violations of this law and its implementing 
regulations, but if confirmed, I would be pleased to review any alleged 
violations brought to my attention and ensure that appropriate remedial 
action is taken and any weaknesses in practices by the Department are 
resolved.

                              shipbuilding
    2. Senator Reed. Dr. Carter, the Navy is at a critical juncture 
regarding its shipbuilding strategy and execution. During the last 
budget cycle, Congress was asked to consider a major change in the plan 
for building destroyers. Moreover, the Littoral Combat Ship (LCS) 
program costs continue to escalate, and the Navy's plan for the future 
cruiser pushed further into the future. These issues, both in planning 
and execution, cause Congress to call into question the quality of the 
Navy's analysis and decision processes. Given the purview of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)), how do you plan to get some control over this process, 
exert the necessary acquisition oversight, and leverage the nearly $20 
billion invested in new combatant technologies and capabilities?
    Dr. Carter. I agree that the Navy shipbuilding effort is at a 
critical juncture. The Defense Acquisition System provides the 
mechanisms for the USD(AT&L) to control the process and exert the 
necessary acquisition oversight. I believe additional emphasis is 
needed to ensure programs are well-matured before proceeding to the 
next phase of acquisition. If confirmed, I will work with the Navy to 
ensure that its future acquisition planning efforts are well integrated 
and that the significant investments made in the past are considered as 
Department and national priorities change over time.

                         acquisition strategies
    3. Senator Reed. Dr. Carter, many studies have shown that the 
implementation of Open Architecture enables competition and that 
despite defense industry consolidation, that competition is essential 
to innovation and cost containment. Can you please comment on how the 
implementation of these recommendations would positively impact 
programs such as the Aegis Weapons System, that have been sole-sourced 
for decades, and how the Services can rapidly implement these changes 
to achieve maximum benefits?
    Dr. Carter. I agree that Open Architecture is an important step 
forward across the broad acquisition portfolio. While I do not have 
complete acquaintance with the specifics of the Navy's plans for Open 
Architecture for the Aegis Weapons System, I believe it would be 
important for the Navy to define its objective combat systems 
architecture and to then conduct the developmental work and systems 
engineering necessary to evolve it into a standards-based modular 
architecture. I believe this would enhance innovation and allow 
qualified vendors to compete for and contribute to the overall Navy 
combat systems product line for the future. The quicker this could be 
done, the sooner the benefits could be achieved.

    4. Senator Reed. Dr. Carter, the Navy's future surface combatant 
plan unveiled in 2001 stated that the massive investment in DDG-1000 
technologies, including automation, would be used on the ``family of 
ships,'' which included LCS, DDG-1000, and CG(X). The Navy has proposed 
deviating from this plan and now proposes to truncate DDG-1000, restart 
DDG 51 production, push out CG(X) for nearly a decade, and insert 
something called Future Surface Combatant in the interim. Please 
explain how you would direct the Navy to leverage the investments 
already made.
    Dr. Carter. The Navy has learned a great deal from DDG-1000 
research and development and I agree that it makes sense to insert 
proven technologies in future ship designs wherever possible. I 
understand there are 10 critical technology advancements associated 
with DDG-1000 and that 8 of the 10 critical technologies could have 
application to CG(X). One critical technology, the Advanced Gun System, 
is currently not planned for any platform other than DDG-1000. The Navy 
should continue to evaluate the utility of the DDG-1000 hull form in 
future applications. The Dual Band Radar is already planned for 
installation in the CVN 78 aircraft carrier. In addition, technologies 
such as Autonomic Fire Suppression System and the Total Ship Computing 
Environment would have utility for incorporation in future surface ship 
and carrier designs.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                     electronics in defense systems
    5. Senator Bayh. Dr. Carter, what are your plans for ensuring that 
DOD procures safe and trusted electronics and printed circuit boards 
for use in defense systems?
    Dr. Carter. Section 254 of the National Defense Authorization Act 
for Fiscal Year 2009 requires the Department of Defense to conduct 
assessments of acquisition programs to identify vulnerabilities in the 
supply chain associated with electronics and information technology 
systems. I understand that the Department is developing recommended 
practices for managing supply chain risk that are effective and can be 
implemented considering cost and schedule impact; and collaborating 
with industry to identify standards and best practices that recognize 
security challenges in commercial global sourcing. If confirmed, my 
intention is to review the results of these assessments, evaluate the 
effectiveness of existing directives and instructions related to the 
acquisition of critical electronic hardware and software, and adjust 
procurement policy and strategy as needed.

    6. Senator Bayh. Dr. Carter, will these plans include changing how 
DOD imports these products?
    Dr. Carter. DOD must be able to both trust its electronic systems 
and preserve access to leading edge industrial capabilities from the 
global marketplace. Where trust is a paramount concern, such as to 
protect critical information, sensitive communications, and mission 
critical weapon system capabilities, the Department has programs in 
place like the DOD Trusted Foundry and Supplier Program for acquiring 
military unique or customized devices. If confirmed, I will continue 
working to ensure that procurement policies and processes are put in 
place to raise awareness of supply chain risks, and empower acquirers 
with the tools necessary to mitigate risk for these critical 
applications in our defense systems. For the vast majority of hardware 
and software it acquires, I think the Department's focus should be to 
work with industry to encourage use of standards, verification methods, 
and procurement practices that will preserve product trust, prevent 
tampering, malicious code insertion, and counterfeit substitution.

                          defense laboratories
    7. Senator Bayh. Dr. Carter, I am concerned that DOD laboratories 
are losing technical stature with respect to Department of Energy (DOE) 
labs, industry labs, and other peers. Do you have plans on improving 
this situation?
    Dr. Carter. If confirmed, I will work with Director, Defense 
Research & Engineering (DDR&E) to review the contribution of the DOD 
labs with an eye to ensuring that they operate at maximum effectiveness 
and productivity. I am certain the labs can be improved, and I will 
place priority in examining the capabilities and long-term requirements 
of the DOD laboratories, and develop, with the Services, a plan to 
address the role of the labs.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                        service level agreements
    8. Senator Udall. Dr. Carter, as the top acquisition official 
within DOD at a time when we are facing many different budget 
pressures, you will be faced with many difficult decisions. In this 
fiscally constrained environment, I believe you will need to look for 
new and innovative ways to acquire capability for our Armed Forces. A 
good example of an innovative and flexible acquisition model is 
NextView Service Level Agreements (SLAs) that exist between commercial 
satellite imagery providers and the National Geospatial-Intelligence 
Agency (NGA). It is my understanding that this relationship has yielded 
substantial improvements to supporting NGA's geospatial and military 
mission, while delivering cost-cutting solutions to the taxpayer. It 
has recently come to my attention that one of the SLAs is set to expire 
at the end of July, but there are plans to extend this through the end 
of the year. While I am pleased to hear this, I am especially 
interested in your future plans for ensuring continued and assured 
access to innovative and cost-effective commercial services such as 
those provided by the commercial satellite imagery industry. Are you 
aware of this commercial government relationship and the imagery 
products the commercial satellite industry is currently providing to 
the warfighter and Intelligence Community?
    Dr. Carter. I am aware in general terms but, as a nominee, I have 
not had access to detailed information. From what I understand, the NGA 
recognizes that mid-resolution, geospatially accurate, commercial 
imagery and imagery derived products are valuable sources of 
geospatial-intelligence (GEOINT) and a key element in support of 
multiple U.S. Government initiatives. As such, they entered into a cost 
sharing arrangement for the development of imagery satellites. This has 
proven especially useful in support of emergencies, disasters, and 
humanitarian efforts both domestic and international. I will, if 
confirmed, continue to look for innovative and cost-effective ways of 
acquiring commercially available imagery that support a multitude of 
needs.

    9. Senator Udall. Dr. Carter, what steps will you take in your role 
as Under Secretary to see that NGA is able to leverage private sector 
investments to increase access to available services at a greater 
value?
    Dr. Carter. If confirmed, I will ensure that we fully enable the 
Director of NGA, in his role as the GEOINT functional manager, to 
leverage private sector investments to increase access to available 
geospatial services at the best value for the U.S. Government. As 
commercial remote sensing capabilities evolve, we should continue to 
ascertain when private sector investments for GEOINT applications and 
services are a cost effective way of supporting the needs of the U.S. 
Government.

                       small business contracting
    10. Senator Udall. Dr. Carter, in 2006, the Small Business 
Administration gave DOD a red rating for not meeting mandated small 
business goals. DOD has historically been significantly below the 
statutory small business contracting requirement of 23 percent. For 
example, the Air Force only issued 15-17 percent of their contract 
dollars to small businesses, and their small business contract dollar 
percentages have actually been declining in recent years rather than 
increasing. In your role as DOD's top acquisition official, what do you 
intend to do to improve the small business contracting record across 
all of the Services to meet these statutory small business contracting 
requirements?
    Dr. Carter. If confirmed, I will work with the DOD Office of Small 
Business Programs (OSBP) to analyze the existing data in order to 
determine what DOD is spending its contract dollars on and from what 
types of businesses. This will allow for identifying opportunities to 
maximize small business participation in DOD contracting. Additionally, 
I will work with the OSBP to ensure that organization has the tools 
necessary, and uses those tools, to improve the small business 
contracting record.

                    director for operational energy
    11. Senator Udall. Dr. Carter, section 902 of the National Defense 
Authorization Act for Fiscal Year 2009 establishes a new position 
within DOD for a Director for Operational Energy. I understand that the 
Department is undertaking an analysis of options for implementing the 
provision, including resourcing and the office's placement within 
Office of the Secretary of Defense (OSD). Section 902 specifies that 
the Director is the principal advisor to the Secretary of Defense and 
Deputy Secretary of Defense and may communicate views ``directly to the 
Secretary of Defense and the Deputy Secretary of Defense without 
obtaining the approval or concurrence of any other official within 
DOD.'' Are any of the options being considered for the Director's 
placement within OSD subordinate to any official in DOD other than the 
Secretary or Deputy Secretary? If so, under whom, and how does the 
Department reconcile that placement as consistent with the cross-
cutting responsibilities assigned to the Director and the direct line 
of communication with the Secretary and Deputy Secretary specified by 
section 902?
    Dr. Carter. I strongly believe that energy security is an important 
part of national security. DOD, through its activities, programs, and 
technology, can play a positive role in strengthening energy security. 
It appears to me that the establishment of the Director of Operational 
Energy in DOD can help the Secretary and Deputy Secretary to realize 
this potential. As a nominee, I have no insight or input into 
organizational matters, so I do not know the Department's intentions in 
this regard.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                         acquisition challenges
    12. Senator Collins. Dr. Carter, what do you believe are the 
biggest challenges facing the DOD acquisition workforce?
    Dr. Carter. I would cite capacity and capability as two of the 
biggest challenges facing the DOD acquisition workforce at this time. 
In the 1990s the workforce in acquisition organizations was cut 
substantially, and since 2001 workload has increased dramatically, but 
the size of the workforce has not kept pace. I believe we must reset 
DOD's multi-sector acquisition workforce with the right size and skill 
mix required to successfully provide proper oversight and management of 
contracts. DOD is also dealing with the dynamics of impending losses of 
an experienced and aging workforce. We must integrate and develop our 
younger generations into an experienced and successful future 
acquisition workforce. These challenges have increased the risk of 
successfully achieving desired acquisition outcomes.

    13. Senator Collins. Dr. Carter, what do you believe should be done 
to address these challenges?
    Dr. Carter. I fully support the Secretary of Defense's new 
strategic direction to restore the acquisition workforce. It is 
essential to effectively achieving the objective of the President's 
March 4, 2009 memo to have the capacity and ability to develop, manage, 
and oversee acquisitions appropriately. The Secretary announced the DOD 
fiscal year 2010 budget objective to significantly grow the acquisition 
workforce by 15 percent--20,000 by 2015. It involves converting 11,000 
contractors to full-time government employees, and hiring 9,000 more 
government acquisition professionals. The growth strategy will increase 
the contracting and oversight workforce, to include the Defense 
Contract Management Agency and the Defense Contract Audit Agency. It 
will enable DOD to have a strong capability in systems engineering, 
cost estimating, and other acquisition functions critical to successful 
acquisition outcomes. This is a very significant step to strengthen the 
acquisition workforce and I look forward, if confirmed, to supporting 
the President, the Secretary, and Congress in this urgent endeavor.

    14. Senator Collins. Dr. Carter, Secretary Gates has made recent 
comments about several future major acquisition projects, including the 
Boeing F-22 Air Force fighter jet, the Lockheed Martin multiservice F-
35 attack plane, the Boeing Future Combat System ground vehicle under 
development for the Army, and the Virginia-class attack submarine built 
by General Dynamics and Northrup Grumman. Can you please comment on 
your plans for evaluating each of these projects?
    Dr. Carter. On April 6, Secretary Gates announced his key decisions 
with respect to the fiscal year 2010 budget. As a nominee, I was not a 
party to the evaluations or discussions that went into the 
recommendations he has made to the President and cannot comment on the 
specific programs you mention. The recommendations appear to me to be 
fully consistent with Secretary Gates' statement that his 
recommendations are the product of a holistic assessment of 
capabilities, requirements, risks and needs for the purpose of shifting 
the Department in a different strategic direction.
    Changes to top-level strategies, as Secretary Gates announced, or 
resource constraints may drive changes to the specific programs the 
Department pursues. Accordingly, each of the Department's acquisition 
programs must be evaluated in the context of how changes to strategy 
impact the need for the program and, conversely, how resource 
constraints affect strategy as well as individual programs the Nation 
pursues. If confirmed, I will evaluate acquisition programs consistent 
with these considerations.

                           u.s. shipbuilding
    15. Senator Collins. Dr. Carter, Chairman Skelton of the House 
Armed Services Committee recently expressed his concern about the 
United States' maritime posture, noting that since the Cold War ended, 
the United States ``. . . forgot that we are a maritime nation. We 
forgot that lesson of history that only the nations with powerful 
navies are able to exert power and influence, and when a navy 
disappears so does that nation's power.'' I agree with Chairman 
Skelton's sentiments and believe that we need a strong Navy to meet the 
dynamic challenges of current and emerging threats. As a maritime 
nation, we must maintain our superior maritime edge in the world in 
order to meet our security, energy, and transportation needs. Not only 
is shipbuilding crucial to our national defense, but it preserves 
thousands of engineering and production jobs for the country and is a 
large contributor to the U.S. economy. If you are confirmed, what steps 
will you take to ensure that the United States maintains its worldwide 
naval dominance?
    Dr. Carter. As Secretary Gates outlined in his recent budget 
statement, the United States maintains a distinct maritime advantage in 
most areas. While I am committed to ensuring the United States 
maintains its worldwide naval dominance, I am open to considering the 
appropriate numbers and types of ships that deliver naval capabilities.

    16. Senator Collins. Dr. Carter, what changes do you think can be 
made in order to create a more stable shipbuilding industrial base?
    Dr. Carter. Stability in the shipbuilding industrial base is 
clearly a function of stability in the Navy's shipbuilding plan. But 
beyond that there are a few initiatives that could be worked with the 
shipbuilding industry to mitigate workload fluctuations within the 
shipyards to maintain a stable and skilled workforce. These include:

         Level loading of ship procurements would help to sustain 
        minimum employment levels and skill retention.
         Reducing the types and models of ships, maximizing the reuse 
        of ship designs and components, and implementing open 
        architectures for software and hardware systems.
         Mitigating workload peaks and valleys through work share 
        opportunities and regional outsourcing to level load production 
        facilities.
         Moving towards sustaining procurement rates would contribute 
        to reducing the magnitude of annual funding variations and 
        provide a more stable demand signal to the shipbuilding 
        industry as a whole.

    If confirmed, I look forward to working on this important issue.
                                 ______
                                 
    [The nomination reference of Dr. Ashton B. Carter follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 18, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Ashton B. Carter, of Massachusetts, to be Under Secretary of 
Defense for Acquisition, Technology, and Logistics, vice John J. Young, 
Jr.
                                 ______
                                 
    [The biographical sketch of Dr. Ashton B. Carter, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Ashton B. Carter
    Professor Ashton Carter is chair of the International and Global 
Affairs faculty at Harvard's Kennedy School of Government. He is also 
Co-Director (with former Secretary of Defense William J. Perry) of the 
Preventive Defense Project, a research collaboration of Harvard and 
Stanford Universities.
    Dr. Carter served as Assistant Secretary of Defense for 
International Security Policy during President Clinton's first term. 
His Pentagon responsibilities encompassed: countering weapons of mass 
destruction worldwide, oversight of the U.S. nuclear arsenal and 
missile defense programs, policy regarding the collapse of the former 
Soviet Union (including its nuclear weapons and other weapons of mass 
destruction), control over sensitive U.S. exports, and chairmanship of 
NATO's High Level Group. He oversaw military planning during the 1994 
crisis over North Korea's nuclear weapons program; was instrumental in 
removing all nuclear weapons from the territories of Ukraine, 
Kazakstan, and Belarus; oversaw the establishment of defense and 
intelligence relationships with the countries of the former Soviet 
Union when the Cold War ended; and participated in the negotiations 
that led to the deployment of Russian troops as part of the Bosnia 
Peace Plan Implementation Force. Dr. Carter managed the multi-billion 
dollar Cooperative Threat Reduction (Nunn-Lugar) program to support 
elimination of nuclear, chemical, and biological weapons of the former 
Soviet Union, including the secret removal of 600 kilograms of highly 
enriched uranium from Kazakstan in the operation code-named Project 
Sapphire. Dr. Carter also directed the Nuclear Posture Review and 
oversaw the Department of Defense's (DOD) Counterproliferation 
Initiative. He directed the reform of DOD's national security export 
controls. His arms control responsibilities included the agreement 
freezing North Korea's nuclear weapons program, the extension of the 
Nuclear Nonproliferation Treaty, the negotiation of the Comprehensive 
Test Ban Treaty, and matters involving the START II, ABM, CFE, and 
other arms control treaties.
    Dr. Carter was twice awarded the Department of Defense 
Distinguished Service Medal, the highest award given by the Department 
For his contributions to intelligence, he was awarded the Defense 
Intelligence Medal. In 1987 Carter was named 1 of 10 Outstanding Young 
Americans by the United States Jaycees. He received the American 
Physical Society's Forum Award for his contributions to physics and 
public policy.
    Dr. Carter continues to advise the U.S. Government as Co-Chair of 
the Review Panel on Future Directions for Defense Threat Reduction 
Agency (DTRA) Missions and Capabilities to Combat Weapons of Mass 
Destruction and Chair of the National Security Strategy and Policies 
Expert Working Group, Congressional Commission on the Strategic Posture 
of the United States, a consultant to the Defense Science Board, a 
member of the National Missile Defense White Team, and a member of the 
National Academy of Sciences Committee on International Security and 
Arms Control.
    Carter served as a longtime member of the Defense Science Board 
(DSB) and the Defense Policy Board (DPB), the principal advisory bodies 
to the Secretary of Defense. He served on DSB from 1991 to 1993, and he 
served on both DSB and DPB from 1997 to 2001. In 1997 Dr. Carter co-
chaired the Catastrophic Terrorism Study Group with former CIA Director 
John M. Deutch, which urged greater attention to terrorism. From 1998 
to 2000, he was deputy to William J. Perry in the North Korea Policy 
Review and traveled with him to Pyongyang. In 2001-2002, he served on 
the National Academy of Sciences Committee on Science and Technology 
for Countering Terrorism and advised on the creation of the Department 
of Homeland Security. In 2006 to 2008 Dr. Carter served as a member of 
Secretary of State Condoleeza Rice's International Security Advisory 
Board. He has testified frequently before the armed services, foreign 
relations, and homeland security committees of both houses of Congress.
    In addition to his public service, Dr. Carter is currently a Senior 
Partner at Global Technology Partners and a member of the Board of 
Trustees of the MITRE Corporation, and the Advisory Boards of MIT's 
Lincoln Laboratories and the Draper Laboratory. He is a consultant to 
Goldman, Sachs on international affairs and technology matters, and 
speaks frequently to business and policy audiences. Dr. Carter is also 
a member of the Aspen Strategy Group, the Council on Foreign Relations, 
the American Physical Society, the International Institute of Strategic 
Studies, the Advisory Board of the Yale Journal of International Law, 
and the National Committee on U.S.-China Relations. Dr. Carter was 
elected a Fellow of the American Academy of Arts and Sciences.
    Dr. Carter's research focuses on the Preventive Defense Project, 
which designs and promotes security policies aimed at preventing the 
emergence of major new threats to the United States.
    From 1990-1993, Dr. Carter was Director of the Center for Science 
and International Affairs at Harvard University's John F. Kennedy 
School of Government, and Chairman of the Editorial Board of 
International Security. Previously, he held positions at the 
Massachusetts Institute of Technology, the Congressional Office of 
Technology Assessment, and Rockefeller University.
    Dr. Carter received bachelor's degrees in physics and in medieval 
history from Yale University, summa cum laude, Phi Beta Kappa. He 
received his doctorate in theoretical physics from Oxford University, 
where he was a Rhodes Scholar.
    In addition to authoring numerous articles, scientific 
publications, government studies, and congressional testimonies, Dr. 
Carter co-edited and co-authored 11 books, including Keeping the Edge: 
Managing Defense for the Future (2001), Preventive Defense: A New 
Security Strategy for America (1997), Cooperative Denuclearization: 
From Pledges to Deeds (1993), A New Concept of Cooperative Security 
(1992), Beyond Spinoff: Military and Commercial Technologies in a 
Changing World (1992), Soviet Nuclear Fission: Control of the Nuclear 
Arsenal in a Disintegrating Soviet Union (1991), Managing Nuclear 
Operations (1987), Ballistic Missile Defense (1984), and Directed 
Energy Missile Defense in Space (1984).
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Ashton B. 
Carter in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ashton Baldwin Carter (Ash Carter).

    2. Position to which nominated:
    Under Secretary of Defense for Acquisition, Technology, and 
Logistics.

    3. Date of nomination:
    March 18, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 24, 1954; Philadelphia, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Stephanie DeLeeuw Carter.

    7. Names and ages of children:
    William Ashton Carter, 20.
    Ava Clayton Carter, 17.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Abington High School, Abington, PA; 1968-1972; High School Diploma, 
1972.
    Yale University, New Haven, CT; 1972-1976; B.A., 1976.
    Edinburgh University, Edinburgh, Scotland; Spring 1975; no degree.
    Oxford University, Oxford, United Kingdom; 1978-1979; D. Phil.; 
1979.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Chair, International & Global Affairs faculty, 2006-present; John 
F. Kennedy School of Government, Harvard University - Cambridge, MA.
    Ford Foundation Professor of Science and International Affairs, 
1996-present; John F. Kennedy School of Government, Harvard University 
- Cambridge, MA.
    Co-Director (with William J. Perry), Preventive Defense Project; 
Harvard & Stanford Universities, 1997-present; Cambridge, MA.
    Senior Advisor to the North Korea Policy Review, 1998-2000 (part 
time while teaching); U.S. Department of State, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Chair, National Security Strategy and Policies Expert Working 
Group, Congressional Commission on the Strategic Posture of the United 
States, 2008-present.
    Co-Chair, Review Panel on Future Directions for Defense Threat 
Reduction Agency Missions and Capabilities To Combat Weapons of Mass 
Destruction, 2007-2008.
    Member, International Security Advisory Board to the Secretary of 
State, 2006-2008.
    Member National Academy of Sciences Committee on Science and 
Technology for Countering Terrorism, 2001-2003.
    Member, National Missile Defense White Team, 1998-present.
    Member, Threat Reduction Advisory Committee, U.S. Department of 
Defense, 1998-2002.
    Member, Defense Science Board, 1991-1993, 1997-2001.
    Member, Defense Policy Board, 1997-2001.
    Assistant Secretary of Defense for International Security Policy, 
U.S. Department of Defense, 1993-1996.
    Member, National Academy of Sciences, Committee on International 
Security and Arms Control, 1990-1993.
    Member, Sandia National Laboratory, President's Advisory Council, 
1992-1993.
    Member, Congressional Office of Technology Assessment, Advisory 
Panel on START Verification Technologies, 1991-1992.
    Member, National Academy of Sciences Panel on National Security 
Export Controls, 1990-1991.
    Member, National Research Council Naval Studies Advisory Committee 
on the Future of the Aircraft Carrier, 1990-1991.
    Member, White House, President's Council of Advisers on Science and 
Technology, Panel on National Security, 1990-1991.
    Member, Defense Science Board Task Force on New Scenarios and 
Intelligence, 1990.
    Member, Congressional Office of Technology Assessment Advisory 
Panel on START Verification Technologies, 1989-1990.
    Member, Joint Chiefs of Staff Advisory Group on the Future of U.S.-
Soviet Military Relations, 1988-1989.
    Member, Commission on the Presidency and Science Advising, 1988.
    Consultant, Bureau of Intelligence and Research, U.S. Department of 
State, 1986-1988.
    Member, Advisory Panel on Military Uses of Space, Office of 
Technology Assessment, U.S. Congress, 1985-1986.
    Analyst, Program Analysis and Evaluation, Office of the Secretary 
of Defense, Pentagon, 1981-1982.
    Analyst, International Security and Commerce Program, Office of 
Technology Assessment, U.S. Congress, 1980-1981.
    Experimental Research Associate, Brookhaven National Laboratory, 
1976.
    Experimental Research Associate, Fermi National Accelerator 
Laboratory, 1975.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Trustee, The MITRE Corporation, 2006-present.
    MIT Lincoln Laboratories Advisory Board, 1998-present.
    Draper Laboratory Corporation, 2000-present.
    Senior Partner, Global Technology Partners, LLC, 1998-present.
    Consultant to Goldman Sachs on international affairs and technology 
matters, 1997-present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Aspen Strategy Group, 1997-present.
    Council on Foreign Relations, 1989-present.
    Fellow, American Academy of Arts and Sciences, 1989-present.
    American Physical Society, 1976-present.
    International Institute for Strategic Studies, 1997-present.
    National Committee on U.S.-China Relations, 1998-present.
    American Academy of Diplomacy, 2008-present.
    American Association of Rhodes Scholars, 1977-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member of National Security Advisory Group to Senator Tom Daschle, 
then Senator Harry Reid, chaired by William J. Perry.
    Co-Chair, with Ronald Lehman, of Policy Advisory Group to Senator 
Richard Lugar.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Quarter 1, 2004, $1,000, Wesley Clark.
    Quarter 1, 2004, $1,000, Joe Lieberman.
    Quarter 1, 2004, $2,000, John Edwards.
    Quarter 1, 2004, $2,000, DNC.
    9/15/2007, $2,300, Hillary Clinton for President.
    9/15/2007, $1,500, Friends of Dick Lugar, Inc.
    8/28/2008, $2,300, Friends of Hillary.
    6/24/2008, $4,600, Obama for America.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Defense Intelligence Medal, from the Defense Intelligence Agency, 
April 1998.
    Distinguished Public Service Medal, Department of Defense (awarded 
twice), the highest award of the Department of Defense, ``For 
exceptionally distinguished service to the Nation as Assistant 
Secretary of Defense for International Security Policy,'' July 1994 and 
December 1995.
    Forum Award, American Physical Society, ``For his clear and lucid 
exposition of the physics issues in the nuclear arms race and his 
unique ability to combine his physics background and good judgment to 
clarify the technical parameters of these important public policy 
issues,'' 1988.
    Ten Outstanding Young Americans, United States Jaycees, 1987.
    Rhodes Scholar, 1976.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Books:
    Keeping the Edge: Managing Defense for the Future. Editor (with 
John P. White) and author of three chapters. Cambridge, MA: The MIT 
Press, 2001. [translated into Chinese, Military History and Translation 
Office, MND, ROC, 2002]
    Preventive Defense: A New Security Strategy for America. With 
William J. Perry. Washington, DC: The Brookings Institution, 1999.

          [translated into Russian by arrangement with Brookings 
        Institution Press, 2003];
          [translated into Arabic by arrangement with Brookings 
        Institution Press, February/March 2002];
          [translated into Chinese, CIP, 2000];
          [translated into Korean, Bestun Korea Agency, 2000]

    Cooperative Denuclearization: From Pledges to Deeds. Editor with 
Graham Allison, Steven E. Miller, and Philip Zelikow. Cambridge, MA: 
Center for Science and International Affairs, Harvard University, 1993.
    A New Concept of Cooperative Security. With John D. Steinbruner and 
William J. Perry.
    Beyond Spinoff: Military and Commercial Technologies in a Changing 
World. With John Alic, Lewis Branscomb, Harvey Brooks and Gerald 
Epstein. Boston, MA: Harvard Business School Press, 1992.
    Soviet Nuclear Fission: Control of the Nuclear Arsenal in a 
Disintegrating Soviet Union. With Kurt Campbell, Steven Miller and 
Charles Zraket. Cambridge, MA: Center for Science and International 
Affairs, Harvard University, November 1991.
    Ashton B. Carter on Arms Control. Kenneth W. Thompson, ed. Lanham, 
MD: University Press of America, January 1990.
    Managing Nuclear Operations. Editor (with John Steinbruner and 
Charles A. Zraket) and author of three chapters. Washington, DC: The 
Brookings Institution, 1987.
    Directed Energy Missile Defense in Space. Washington, DC: Office of 
Technology Assessment, U.S. Congress, 1984.
    Ballistic Missile Defense. Editor (with David N. Schwartz) and 
author of two chapters. Washington, DC: The Brookings Institution, 
1984.
    MX Missile Basing (with Classified Annex). Author of chapters on 
``Launch Under Attack''; ``Ballistic Missile Defense''; ``Air Mobile 
Basing''; ``Land Mobile Basing''; and (with Theodore Postol) ``Command, 
Control, and Communications''. Washington, DC: Office of Technology 
Assessment, U.S. Congress, 1981.
Articles:
    ``Defense Strategy and Budget in the Post-Bush Era.'' The 
Instruments and Institutions of American Purpose, Kurt M. Campbell and 
Jonathan Price, eds. Washington, DC: The Aspen Institute, 2009 
(forthcoming).
    ``Defense Management Challenges for the Next American President.'' 
Orbis: A Journal of World Affairs 53, no. 1, Winter 2009.
    ``Defense Management Challenges in the Post-Bush Era.'' In William 
B. Ruger Chair of National Security Economics Papers Number 3: Defense 
Strategy and Forces: Setting Future Directions, ed. Richmond M. Lloyd, 
William B. Ruger, Chair of National Security. Newport, RI: Naval War 
College, 2008.
    Meeting the Challenge: U.S. Policy Toward Iranian Nuclear 
Development. With Amb. Daniel Coats, Sen. Charles Robb, Adm. (Ret.) 
Gregory Johnson, Gen. Ronald Keys (Ret.), Edward Morse, Steve 
Rademaker, Amb. Dennis Ross, Henry Sokolski, Gen. Chuck Wald (Ret.), 
and Kenneth Weinstein. U.S. Policy Toward Iranian Nuclear Development. 
19 September 2008.
    ``Strengthening our Strategy Against WMD.'' With Robert G. Joseph. 
The Boston Globe, 14 August 2008, A-15.
    Trip Report: Strategic Security Issues Delegation to Taiwan and the 
People's Republic of China - June 22-July 1, 2008. With William J. 
Perry, et al. 17 July 2008.
    Ensuring Security in an Unpredictable World: Project on National 
Security Reform - Preliminary Findings. With David M. Abshire, Norman 
R. Augustine, Robert D. Blackwill, Dennis C. Blair, Charles G. Boyd, 
Daniel W. Christman, Wesley K. Clark, Ruth A. David, Michele Flournoy, 
Leon Fuerth, Newt Gingrich, James R. Locher III, James M. Loy, Jessica 
Tuchman Mathews, John McLaughlin, Joseph S. Nye, Jr., Carlos Pascual, 
Thomas R. Pickering, Brent Scowcroft, Jeffrey H. Smith, James B. 
Steinberg, and Ken Weinstein. July 2008.
    ``Military Elements in a Strategy to Deal with Iran's Nuclear 
Program.'' Center for a New American Security Working Papers, June 
2008.
    Review Panel on Future Directions for Defense Threat Reduction 
Agency Missions and Capabilities to Combat Weapons of Mass Destruction. 
With Robert G. Joseph, et al. March 2008.
    ``China's Rise in American Military Strategy.'' With William J. 
Perry. In China's March on the 21st Century: A Report of the Aspen 
Strategy Group, Kurt M. Campbell and Willow Darsie, eds. Washington, 
DC: The Aspen Institute, 2007, 107-117.
    ``America's Strategic Response to China's Military Modernization.'' 
With Jennifer C. Bulkeley. Harvard-Asia-Pacific Review 9:1 (Winter 
2007).
    Reducing Nuclear Threats and Preventing Nuclear Terrorism. With 
William J. Perry (chair), Graham Allison, Joseph Cirincione, Thomas E. 
Donilon, Robert Einhorn, Michele A. Flournoy, Leon Fuerth, Robert 
Gallucci, Ernest Moniz, George Perkovich, Wendy R. Sherman (members). 
National Security Advisory Group, 19 October 2007.
    Report on Discouraging a Cascade of Nuclear Weapons States. With 
Gordon Oehler, Michael R. Anastasio, Robert Monroe, Keith B. Payne, 
Robert Pfaltzgraff, William Schneider, and William Van Cleave, 
International Security Advisory Board, 19 October 2007.
    ``The Day After: Action Following a Nuclear Blast in a U.S. City.'' 
With Michael M. May and William J. Perry. The Washington Quarterly No. 
30: 4 (Autumn 2007), 19-32.
    ``After the Bomb.'' With William J. Perry and Michael M. May. The 
New York Times, 12 June 2007, A-24.
    ``The Day After: Action in the 24 Hours Following a Nuclear Blast 
in an American City.'' With Michael M. May and William J. Perry. Report 
based on April 19, 2007 workshop hosted by the Preventive Defense 
Project, Harvard and Stanford Universities, 31 May 2007.
    ``China on the March.'' With William J. Perry. The National 
Interest, no. 88 (March-April 2007), 16-22.
    ``How Washington Learned to Stop Worrying and Love India's Bomb.'' 
Foreign Affairs (foreignaffairs.org), 10 January 2007.
    ``Plan B for Iran: What if Nuclear Diplomacy Fails?'' With William 
J. Perry. Report based on May 22, 2006 workshop hosted by the 
Preventive Defense Project, Harvard and Stanford Universities, 10 
September 2006.
    ``America's New Strategic Partner?'' Foreign Affairs 85, no. 4 
(July-August 2006), 33-44.
    ``The Case for a Preemptive Strike on North Korea's Missiles.'' 
With William J. Perry. TIME (time.com), 8 July 2006.
    ``If Necessary, Strike and Destroy.'' With William J. Perry. The 
Washington Post, 22 June 2006, A-29.
    ``Toolbox: Containing the Nuclear RedZone Threat.'' With Stephen A. 
LaMontagne. The American Interest 1, no. 3 (Spring 2006), 40.
    ``A Fuel-Cycle Fix.'' With Stephen A. LaMontagne. The Bulletin of 
the Atomic Scientists (January-February 2006), 24-25.
    ``The U.S. Military: Under Strain and at Risk.'' With William J. 
Perry (chair), Madeleine K. Albright, Graham T. Allison, Samuel R. 
Berger, Gen. Wesley K. Clark, Thomas E. Donilon, Michele A. Flournoy, 
John D. Podesta, Susan E. Rice, Gen. John M. Shalikashvili, Wendy R. 
Sherman, Elizabeth D. Sherwood-Randall and James B. Steinberg 
(members). National Security Advisory Group, January 2006.
    ``The Essential Features of a Focused Strategy to Deal with the 
Proliferation Challenge: What Has Been Done and What Is to Be Done?'' 
In The Challenge of Proliferation: A Report of the Aspen Strategy 
Group, Kurt M. Campbell, ed. Washington, DC: The Aspen Institute, 2005, 
141-152.
    ``Origins of the Nunn-Lugar Program.'' Presentation to the 
Presidential Conference on William Jefferson Clinton, Hofstra 
University. 11 November 2005.
    ``New Approaches for Addressing the Threat of WMD Proliferation.'' 
Presentation to conference on Non-Proliferation of Weapons of Mass 
Destruction, Tufts University, Fletcher School of Law & Diplomacy. 21 
October 2005.
    ``Interim Report on Nuclear Threat Reduction and the Fuel Cycle.'' 
Memo to Senator Richard G. Lugar, Chairman, Senate Committee on Foreign 
Relations. With Ronald Lehman II (co-chair, with Ashton Carter), Robert 
Einhorn, Alan A. Foley, Arnold Kanter, David Kay, Susan Koch, Lawrence 
Scheinman, and William Schneider, Jr. (members). Policy Advisory Group 
on Nonproliferation, 1 July 2005.
    ``Worst Weapons in Worst Hands: U.S. Inaction on the Nuclear Terror 
Threat since September 11, and a Path of Action.'' With William J. 
Perry (chair), Madeleine K. Albright, Graham T. Allison, Samuel R. 
Berger, Gen. Wesley K. Clark, Thomas E. Donilon, Michele A. Flournoy, 
John D. Podesta, Susan E. Rice, Gen. John M. Shalikashvili, Wendy R. 
Sherman, Elizabeth D. Sherwood-Randall and James B. Steinberg 
(members). National Security Advisory Group, July 2005.
    ``Worst People and Worst Weapons.'' Statement before The 9/11 
Public Discourse Project's Hearings on ``The 9/11 Commission Report: 
The Unfinished Agenda.'' 27 June 2005.
    ``A Failure of Policy, Not Spying.'' The Washington Post, 5 April 
2005, A-23.
    ``Conversations with The Forum: Perspectives on Preemption and 
National Security.'' Interview with Dr. Ashton Carter. The Fletcher 
Forum of World Affairs 29, no. 1 (Winter 2005), 9-12.
    ``The Essential Features of a Focused Strategy to Deal with the 
Proliferation Challenge: What Has Been Done and What Is to Be Done?'' 
In The Challenge of Proliferation: A Report of the Aspen Strategy 
Group, Kurt M. Campbell, ed. Washington, DC: The Aspen Institute, 2005, 
141-152.
    ``Overhauling Counterproliferation Intelligence.'' Statement before 
The Commission on the Intelligence Capabilities of the United States 
Regarding Weapons of Mass Destruction (The ``Robb-Silberman'' 
Commission). 4 October 2004.
    ``How to Counter WMD.'' Foreign Affairs 83, no. 5 (September-
October 2004), 72-85.
    ``Overhauling Counterproliferation.'' Technology in Society: An 
International Journal-Special Issue: Technology and Science: Entering 
the 21st Century, George Bugliarello and A. George Schillinger, eds., 
26, nos. 2/3 (April/August 2004), 257-269.
    ``The Architecture of Government in the Face of Terrorism.'' 
Countering Terrorism: Dimensions of Preparedness, Arnold M. Howitt and 
Robyn L. Pangi, eds. Cambridge, MA: MIT Press, 2003, 17-36.
    ``A Dedicated Organization in Congress.'' With Gerald L. Epstein. 
Science and Technology Advice for Congress, M. Granger Morgan and Jon 
M. Peha, eds. Washington, DC: RFF Press, 2003, 157-163.
    ``Good Nukes, Bad Nukes.'' With Arnold Kanter, William J. Perry, 
and Brent Scowcroft. The New York Times, 22 December 2003, A-31.
    ``Extremism, Economic Uncertainty and the Investment Implications 
of U.S. National Security Policy,'' Greenwich Roundtable Quarterly. 
Standard and Poors. 16 October 2003.
    ``The Korean Nuclear Crisis: Preventing the Truly Dangerous Spread 
of Weapons of Mass Destruction.'' Harvard Magazine, September-October 
2003, 38-41.
    ``An American Security Policy: Challenge, Opportunity, 
Commitment.'' With William J. Perry (chair), Madeleine K. Albright, 
Samuel R. Berger, Louis Caldera, Gen. Wesley K. Clark, Michele A. 
Flournoy, Alfonso E. Lenhardt, John D. Podesta, Gen. John M. 
Shalikashvili, and Elizabeth Sherwood-Randall (members). National 
Security Advisory Group, July 2003.
    ``A Prescription for Peace.'' Review of No More Killing Fields: 
Preventing Deadly Conflict by David A. Hamburg. Science, 30 May 2003, 
1374.
    The Loose Nukes Crisis in North Korea.'' Memorandum to the Senate 
Democratic Leadership from the National Security Advisory Group. With 
William J. Perry (chair), Madeleine K. Albright, Samuel R. Berger, 
Louis Caldera, Wesley Clark, Michele Flournoy, Alfonso E. Lenhardt, 
John D. Podesta, John Shalikashvili, and Elizabeth Sherwood-Randall 
(members), 5 March 2003.
    ``A Scary Thought: Loose Nukes in North Korea.'' With William J. 
Perry and John M. Shalikashvili. The Wall Street Journal, 6 February 
2003, A-18.
    ``The Crisis Last Time.'' With William J. Perry. The New York 
Times, 19 January 2003,4-13.
    Making the Nation Safer The Role of Science and Technology in 
Countering Terrorism. With Lewis M. Branscomb, Richard D. Klausner, et 
al. Washington, DC: The National Academies Press, 2002.
    ``Nuclear Over North Korea: Back to the Brink.'' The Washington 
Post, 20 October 2002, B-1 & B-5.
    Protecting America's Freedom in the Information Age. With Zoe 
Baird, James L. Barkdale, Philip Zelikow et al. (The Markle Foundation 
Task Force on National Security in the Information Age). Markle 
Foundation, October 2002.
    ``Throw the Net Worldwide.'' The Washington Post, 12 June 2002, A-
31.
    ``Counterterror's Management Style.'' The New York Times, 8 June 
2002, A-27.
    Trip Report: Nunn-Lugar Sites in Russia. A memo to colleagues of 
the Preventive Defense Project. 3 June 2002.
    ``A New Era, A New Threat.'' With Richard Lugar. Financial Times, 
23 May 2002, 15.
    ``Understanding Terrorism: A Harvard Magazine Roundtable.'' With 
Eva Bellin, Philip B. Heymann, David Little, Louise M. Richardson and 
Jessica E. Stern. Harvard Magazine (January-February 2002), 36-49.
    ``Beyond the Counterproliferation Initiative to a `Revolution in 
Counterproliferation Affairs.' '' With L. Celeste Johnson. National 
Security Studies Quarterly 5, no. 3 (summer 1999), 88-90.
    ``Grand Terrorism: A New Threat to National Security.'' Peter L. 
Hays et al., eds. Countering the Proliferation and Use of Weapons of 
Mass Destruction. New York: McGraw-Hill, 1998: 273-279.
    Fulfilling the Promise: Building an Enduring Security Relationship 
Between Ukraine and NATO. With Steven E. Miller and Elizabeth Sherwood-
Randall. Cambridge, MA and Stanford, CA: Preventive Defense Project 
publications 1, no. 4 (1998).
    ``Catastrophic Terrorism: Tackling the New Danger.'' With John M. 
Deutch and Philip Zelikow. Foreign Affairs 77, no. 6 (November-December 
1998), 80-94.
    Catastrophic Terrorism: Elements of a National Policy. With John M. 
Deutch and Philip Zelikow. Preventive Defense Project publications, 
vol. 1, no. 6, Center for International Security and Cooperation 
(CISAC), Stanford University, October 1998.
    The Content of U.S. Engagement with China. With William J. Perry. 
Cambridge, MA and Stanford, CA: Preventive Defense Project publications 
1, no. 2 (July 1998).
    ``Move Closer to China, Not Far, for Security.'' With John M. 
Deutch and William J. Perry. USA Today, 11 June 1998.
    NATO After Madrid: Looking to the Future. With Coit D. Blacker, 
Warren Christopher, David A. Hamburg, and William J. Perry. Cambridge, 
MA and Stanford, CA: Preventive Defense Project publications 1, no. 1 
(June 1998).
    ``No Nukes? Not Yet.'' With John M. Deutch, Wall St. Journal, 4 
March 1997.
    ``Cooperative Security and the Former Soviet Union: Near-Term 
Challenges.'' With Steven E. Miller. In Global Engagement: Cooperation 
and Security in the
    21st Century, Janne E. Nolan, ed. Washington, DC: The Brookings 
Institution, 1994.
    ``The Imperatives for Cooperation.'' With Janne E. Nolan, John D. 
Steinbruner, Kenneth Flamm, Steven E. Miller, David Mussington, and 
William J. Perry. In Global Engagement: Cooperation and Security in the 
21st Century, Janne E. Nolan, ed. Washington, DC: The Brookings 
Institution, 1994.
    ``The Role of Intelligence in Managing Proliferation.'' With Robert 
D. Blackwill. In New Nuclear Nations: Consequences for U.S. Policy, 
Robert D. Blackwill and Albert Camesale, eds. New York: Council on 
Foreign Relations, 1993.
    ``The Soviet Arsenal and the Mistaken Calculus of Caution.'' With 
Graham T. Allison and Philip D. Zelikow. The Washington Post 29 March 
1992. ``Reducing the Nuclear Dangers from the Former Soviet Union.'' 
Arms Control Today 22, no. 1 (January-February 1992).
    Finding Common Ground: U.S. Export Controls in a Changed Global 
Environment. With Roland W. Schmitt et al. Washington, DC: National 
Academies Press, 1991.
    ``Technical Demarcations for ASAT and BMD Systems.'' With Donald L. 
Hafner and Thomas H. Johnson. In Peaceful and Non-Peaceful Uses of 
Space: Problems of Definition for the Prevention of an Arms Race, 
Bhupendra Jasani, ed. New York: Taylor & Francis, 1991.
    ``Emerging Themes in Nuclear Arms Control.'' Daedalus 120, no. 1 
(Winter 1991).
    ``Command and Control of Nuclear Forces.'' In A Primer for the 
Nuclear Age, Graham T. Allison et al., eds. Lanham, MD: University 
Press of America, CSIA Occasional Paper, no.6 (1990).
    ``New Scenarios for American Defense.'' Defense Science Board, 
report of the Scenarios and Intelligence Task Force, September 1990.
    New Thinking and American Defense Technology. With William J. 
Perry. Report of the Carnegie Commission on Science, Technology, and 
Government. August 1990.
    ``Analyzing the Dual Use Technologies Question.'' Harvard 
University, Science, Technology, and Public Policy Program Discussion 
Paper 89, no. 5 (1989).
    ``Permitted and Prohibited Space Testing Under the ABM Treaty.'' In 
Technologies for Security and Arms Control: Threats and Promises, ed. 
Eric H. Arnett. American Association for the Advancement of Science, 
1989.
    ``Telecommunications Policy and National Security.'' In Changing 
the Rules: Technological Change, International Competition, and 
Regulation in Communications, Robert Crandall and Kenneth Flamm, eds. 
Washington, DC: The Brookings Institution, 1989, 221-253.
    ``Underlying Military Objectives'' and ``Limitations and Allowances 
for Space-Based Weapons.'' In Defending Deterrence: Managing the ABM 
Treaty Regime into the 21st Century, An American Academy of Arts and 
Sciences Study, Antonia Chayes and Paul Doty, eds. Pergamon-Brassey, 
1989, 17-26; 132-135.
    ``Testing Weapons in Space.'' Scientific American 261, no.1 , July 
1989, 33-40.
    ``A New Era in Science Advising.'' Science and Technology Advice to 
the President, Congress, and Judiciary, William T. Golden, ed. 
Pergamon, 1988.
    ``Nuclear Command and Control: The Next Thirty Years of 
Technological Change.'' With John S. Quilty and Charles A. Zraket. In 
The Future of Nuclear Weapons: The Next Thirty Years. Los Alamos 
National Laboratory, 1988.
    ``The Structure of Possible U.S.-Soviet Agreements Regarding 
Missile Defense.'' In On the Defensive?: The Future of SDI, Joseph S. 
Nye, Jr. and James A. Schear, eds. Lanham, MD: University Press of 
America, I988, 141-171.
    ``Current and Future Military Uses of Space.'' In Seeking Stability 
in Space: Anti-Satellite Weapons and the Evolving Space Regime, Joseph 
S. Nye, Jr. and James A. Schear, eds. Lanham, MD: University Press of 
America, I987.
    ``Interpreting the ABM Treaty: Agreed Limitations on Military 
Activities in Space.'' Proceedings of the Thirty-Seventh Pugwash 
Conference on Science and World Affairs, Gmunden am Traunsee Austria, 
1-6 September 1987.
    Crisis Stability and Nuclear War(with others). American Academy of 
Arts and Sciences and the Cornell University Peace Studies Program, 
January I987.
    ``Military Uses of Space.'' In The High Technologies and Reducing 
the Risk of War, H. Guyford Stever and Heinz R. Pagels, eds. Annals of 
the New York Academy of Sciences 489, (1986).
    ``The Relationship of ASAT and BMD Systems.'' Daedalus 114, no. 2 
(Spring 1985).
    ``Command and Control of Nuclear War.'' Scientific American 252, 
no. 1 (January 1985), 32-39.
    ``Satellites and Anti-Satellites: The Limits of the Possible.'' 
International Security 10, no. 4, (Spring 1984).
    ``` `Gray's Bomb,' Strategic Studies: A Critical Assessment by 
Colin S. Gray,'' Foreign Service Journal (October 1982).
    ``The Industry of Defense,' The Defense Industry by Jacques S. 
Gansler,'' Foreign Service Journal (July-August 1982).
    `` `Cruise Missile Reality,' Cruise Missiles: Technology, Strategy, 
Politics edited by Richard K. Berts,'' Foreign Service Journal (May 
1982).
    ``CP Violation in B-Meson Decays.'' With A.I. Sanda, Physical 
Review D23, no. 7 (1 April 1981): 1567-1579.
    ``CP Nonconservation in Cascade Decays of B Mesons.'' With A.I. 
Sanda. Physical Review Letters 45, no. 12 (September 1980): 952-954.
    ``Perturbative QCD in a Covariant Gauge.'' With C.H. Llewellyn 
Smith. Nuclear Physics, B162 (1980): 397-439.
    ``Weak <triangle>| = 1/2 Rule and the Dynamical Higgs Mechanism.'' 
With Heinz Pagels. Physical Review Letters 43, no. 25 (December 1979): 
1845-1847.
    ``The Vocabulary of Social and Political Association in Twelfth 
Century Flanders.'' Senior Thesis in History at Yale University, 1976.
    ``Polarization of Prompt Muons Produced at Pt = 2.15 GeV/c by 400-
GeV Proton Interactions.'' With M.J. Lauterbach, et al. Physical Review 
Letters 37, no. 21 (22 November 1976): 1436-1438.
    ``Polarization of Prompt Muons.'' With R.K. Adair, et al. Physical 
Review Letters 36, no. 17 (26 April 1976): 1011-1013.
    ``Production of Prompt Muons in the Forward Direction by 400-GeV 
Proton Interactions.'' With R.K. Adair, et al. Physical Review Letters 
35, no. 24 (15 December 1975): 1613-1616.
    ``Quarks, Charm and the Psi Particle: A review of recent 
development in high energy physics.'' Yale Scientific. 50 no. 1 
(October 1975).
    ``CIA Victimized,'' Yale Daily News (22 January 1975), 2.
Congressional Testimony:
    ``Actions Now for the Day After: Findings of the Preventive Defense 
Day After Project.'' Testimony before the Committee on Homeland 
Security and Governmental Affairs, U.S. Senate. 110th Congress, 2nd 
Session. 15 April 2008.
    ``Assessing the India Deal.'' Testimony before the Committee on 
Foreign Relations, U.S. Senate. 26 April 2006.
    ``The India Deal: Looking at the Big Picture.'' Testimony before 
the Committee on Foreign Relations, U.S. Senate. 2 November 2005.
    ``Implementing a Denuclearization Agreement with North Korea.'' 
Testimony before the Committee on Foreign Relations, U.S. Senate. 15 
July 2004.
    ``Seven Steps to Overhaul Counterproliferation.'' Testimony before 
the Armed Services Committee, U.S. House of Representatives. 17 March 
2004.
    ``Overhauling Counterproliferation.'' Testimony before the 
Committee on Foreign Relations, U.S. Senate. 10 March 2004.
    ``Alternatives to Letting North Korea Go Nuclear.'' Testimony 
before the Committee on Foreign Relations, U.S. Senate. 6 March 2003.
    ``Three Crises with North Korea.'' Testimony before the Committee 
on Foreign Relations, U.S. Senate. 4 February 2003.
    ``Arms Control and Nuclear Terrorism: A Global Coalition Against 
Catastrophic Terrorism.'' Testimony on the Moscow Treaty on Strategic 
Offensive Reductions (SORT) before the Armed Services Committee, U.S. 
Senate. 1 August 2002.
    ``Roles for the White House and the New Department.'' Testimony on 
the Relationship between a Department of Homeland Security and the 
Intelligence Community before the Governmental Affairs Committee, U.S. 
Senate, 26 June 2002.
    ``Ashton B. Carter on Homeland Security (ref: The Architecture of 
Government in the Face of Terrorism).'' Testimony on Homeland Security 
before the Appropriations Committee, U.S. Senate. 10 April 2002.
    ``Countering Proliferation.'' Testimony to the Committee on Foreign 
Relations, United States Senate, 106th Congress, 2nd Session. 30 March 
2000.
    ``The Perils of Complacency: Adapting U.S. Defense to Future 
Needs.'' Testimony to the Senate Armed Services Committee, Subcommittee 
on Emerging Threats and Capabilities. Hearing Report is forthcoming. 21 
March 2000.
    ``Export Control Reform in High Technology.'' Statement to the 
House Committee on Science, Space, and Technology, Field Hearing, no. 
57 (13 August 1993), 160-170. Washington: USGPO, 1993.
    ``Actions to Reduce the Nuclear Danger in the Former Soviet 
Union.'' Testimony to the House Armed Services Committee, Defense 
Policy Panel. December 1991.
    ``The Relationship Between the Defense and Commercial Technology 
Bases.'' Testimony at Hearings on National Defense Authorization Act 
for Fiscal Year 1990 (H.R. 2461), H.A.S.C. Hearings Report, Serial No. 
101-10, February 1989.
    ``Permitted and Prohibited Space Testing Under the ABM Treaty.'' 
Testimony before the Special Panel on the Strategic Defense Initiative, 
Hearings Before the Strategic Defense Initiative Panel of the Committee 
on Armed Services, U.S. House of Representatives (100th Congress, 2nd 
Session), 29 September 1988.
    ``The Strategic Defense Initiative.'' Hearings before the Committee 
on Armed Services, United States Senate (99th Congress, 1st session). 
18 March 1985, Department of Defense Authorization for Appropriations 
for Fiscal Year 1986, Part 7 (Strategic and Theater Nuclear Forces), 
4021-4036.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I give a large number of lectures and speeches, using no notes or 
handwritten notes that are not archived. Almost all talks are derived 
from, or form the basis of, written publications or testimony, and 
their content can be found in #15 above.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Ashton B. Carter.
    This 17th day of March, 2009.

    [The nomination of Dr. Ashton B. Carter was reported to the 
Senate by Chairman Levin on April 1, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 23, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. James N. Miller, Jr., 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see the need to modify the provisions of the 
Goldwater-Nichol Act at this time. The Act was a very significant piece 
of legislation that, over the course of several decades, has led to 
dramatic improvements in the effectiveness of the Armed Forces--from 
strategic decisionmaking to operational command and control. An entire 
generation of military officers now has a much improved perspective on 
coordinated, multi-service, joint training, and operations.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my previous answer.
                             relationships
    Question. What do you see as the relationship between the Principal 
Deputy Under Secretary of Defense for Policy and each of the following?
    The Secretary of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy (USD(P)), as the USD(P)'s 
principal assistant, the Principal Deputy Under Secretary of Defense 
for Policy (PDUSD(P)) serves as a staff assistant and advisor to the 
Secretary of Defense on all matters concerning the formulation of 
national security and defense policy and the integration and oversight 
of DOD policy and plans to achieve national security objectives.
    Question. The Deputy Secretary of Defense.
    Answer. The Principal Deputy Under Secretary for Policy provides 
support to the Deputy Secretary similar to that provided to the 
Secretary, as described above.
    Question. The Under Secretary of Defense for Policy.
    Answer. The PDUSD(P) is the principal assistant to the USD(P) and 
is responsible for assisting the USD(P) in carrying out all 
responsibilities, fulfilling functions, managing relationships, and 
exercising authorities provided for in law to the USD(P). The PDUSD(P) 
advises on and supports the USD(P) with all responsibilities in 
providing advice to the Secretary of Defense in interagency fora (such 
as National Security Council and Homeland Security Council 
deliberations), engagement with international interlocutors, and in the 
Planning, Programming, Budgeting, and Execution (PPBE) processes inside 
the Department, including the Quadrennial Defense Review (QDR), the 
Nuclear Posture Review (NPR), and annual program and budget reviews.
    Question. The other Under Secretaries of Defense, including the 
Under Secretary of Defense for Intelligence.
    Answer. Pursuant to the authority, direction, and control of the 
USD(P), the PDUSD(P) works closely with the other Under Secretaries of 
Defense and their Deputies, including the Under Secretary of Defense 
for Intelligence, to achieve the Secretary's objectives. This includes 
providing policy input, as appropriate, to each of them in their 
respective areas of responsibility.
    Question. The Assistant Secretaries of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
USD(P), the PDUSD(P) works closely with Assistant Secretaries of 
Defense across the Department to achieve the Secretary's objectives. 
This includes providing policy input, as appropriate, to each of them 
in their respective areas of responsibility. As the USD(P)'s principal 
assistant, within the Office of the USD(P), the PDUSD(P) provides 
oversight of Assistant Secretaries on issues and at times as directed 
by the USD(P). The Policy team works together to provide the USD(P) and 
the Secretary with advice and recommendations on the full range of 
policy issues under consideration in the Department and provides policy 
oversight to ensure that the Secretary's guidance and decisions are 
implemented properly.
    Question. The Secretaries of the Military Departments.
    Answer. The PDUSD(P) works closely with the Secretaries of the 
Military Departments on a broad range of issues, including strategy 
development, force planning and other areas in which the military 
departments are critical stakeholders.
    Question. The General Counsel of DOD.
    Answer. The PDUSD(P) works closely with the General Counsel on all 
policy issues that involve a legal dimension. This generally requires 
significant and regular coordination on a broad range of issues.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President and the National Security Council, the Chairman 
has a unique and critical military role. The PDUSD(P) works closely 
with the Chairman and Vice Chairman to support the efforts of the 
USD(P), the Secretary and the Deputy Secretary, and to help ensure that 
military advice is taken into account in an appropriate manner.
    Question. The Commanders of the Regional and Functional Combatant 
Commands.
    Answer. The PDUSD(P) also works closely with the Regional and 
Functional Combatant Commanders to support the efforts of the USD(P), 
Secretary and Deputy Secretary, particularly in the areas of strategy 
and policy, contingency planning and policy oversight of operations.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration
    Answer. The PDUSD(P) works with the Administrator and Deputy 
Administrator of the National Nuclear Security Administration, in 
support of the USD(P)'s oversight of strategy for nuclear weapons and 
forces, as well as USD(P)'s role on the Nuclear Weapons Council.
  duties of the principal deputy under secretary of defense for policy
    Question. Section 134a of title 10, U.S.C., provides that the 
DUSD(P) shall assist the USD(P) in the performance of his duties. DOD 
Directive 5111.3 emphasizes that the DUSD(P) advises and assists the 
USD(P), particularly on strategy formulation, contingency planning, and 
the integration of DOD plans and policy with overall national security 
objectives.
    What is your understanding of the duties and functions of the 
PDUSD(P) under current regulations and practices?
    Answer. My understanding is that, as the principal assistant to the 
USD(P), the PDUSD(P) is responsible for assisting the USD(P) in 
advising the Secretary of Defense on all matters concerning the 
formulation of national security and defense policy, and for assisting 
the USD(P) in carrying out all USD(P) responsibilities outlined in 
section 134(b) of title 10. This includes, but not limited to, strategy 
formulation, contingency planning, and the integration of DOD plans and 
policy with overall national security objectives.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the USD(P) would prescribe 
for you?
    Answer. If confirmed, I expect that my duties and functions would 
include advising and assisting the USD(P) and the Secretary of Defense 
on strategy formulation, contingency planning, and the integration of 
DOD plans and policy. I expect that this would include involvement in 
the planning, programming, budgeting, and execution (PPBE) system, and 
in major departmental reviews such as the QDR and the NPR. I look 
forward to speaking with the Secretary of Defense and the USD(P) 
further about how I could best support their efforts.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have been privileged to spend the last 25 years working 
on a wide range of defense and national security issues, both in and 
out of government. I had the honor to work for the late Les Aspin for 4 
years as a professional staff member of the House Armed Services 
Committee, where I was responsible for both policy and procurement 
issues. I was privileged to serve for over 3 years as Deputy Assistant 
Secretary of Defense for Requirements, Plans and Counterproliferation 
Policy, where my office led defense planning, oversight of war plans, 
and efforts to improve the military's ability to cope with weapons of 
mass destruction (WMD). During my time outside of government, I have 
had the opportunity to teach and conduct research on national security 
issues, to establish and lead a private sector group that provided 
consulting services to DOD, and to serve in a leadership position for a 
newly established national security think tank. In addition, I have 
served on a number of studies and panels including as an advisor to the 
Defense Science Board, and as an expert to the Commission on the 
Strategic Posture of the United States. I believe that my substantive 
expertise and management experience would allow me to serve the country 
well if confirmed as PDUSD(P).
             strategy formulation and contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. DOD Directive 5111.3 specifically assigns a major 
role to the DUSD(P) for those important matters.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. Civilian oversight of the military is critical in a 
democracy, and is therefore paramount when considering the formulation 
of strategy and contingency plans. When I served in the Department as 
Deputy Assistant Secretary for Requirements, Plans, and 
Counterproliferation Policy, I oversaw the development of strategic 
planning and contingency planning guidance, as well as the civilian 
review of contingency plans in support of the USD(P) and the Secretary 
of Defense. Based on this experience, I believe strongly that the 
development of appropriate guidance and plans requires civilian and 
uniformed leaders to work in close partnership.
    More specifically, the PDUSD(P) supports the development of the 
President's National Security Strategy, the development of the defense 
strategy, the establishment of realistic objectives and guidance to 
form the basis for contingency planning, and the review of DOD plans 
and programs to ensure they support strategic objectives. The Joint 
Staff is a critical partner in the development of guidance for 
contingency planning and provides independent military advice to the 
Secretary of Defense and the President. In addition to the provision of 
written guidance, an important civilian role is to review contingency 
plans submitted for approval by the combatant commanders. The PDUSD(P) 
also supports the USD(P) in facilitating interagency coordination on 
contingency planning efforts, as necessary.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy and contingency 
planning?
    Answer. I believe that the civilian leadership has the necessary 
authorities to provide effective oversight of strategy and contingency 
planning. At the same time, I believe that changes to the 
organizational structure of the Office of the USD(P) could help improve 
the support of senior leadership on these critical issues. If 
confirmed, I will work with the USD(P) to examine this issue closely 
and to help ensure that civilian leadership has appropriate oversight 
of strategy, contingency planning, and other critical issues relating 
to the use of force.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy and contingency 
planning?
    Answer. Ongoing wars in Iraq and Afghanistan, as well as a complex 
security environment globally, provide an incredibly diverse set of 
challenges and opportunities for today and the future. Because of this 
increased complexity, I believe that it is likely that strategy and 
planning require more senior level attention and more supporting 
personnel in DOD, and in particular in the Office of the USD(P), than 
has been the case in the past. In addition, I believe that recent 
experience has shown the importance of ``whole of government'' 
approaches to strategy, plans, and operations. Therefore establishing 
effective organizations and processes for working with interagency 
partners, while protecting DOD prerogatives, is an area where I believe 
it is useful to consider possible additional measures. If confirmed, I 
look forward to working with the USD(P) to examine these issues 
closely.
    If confirmed, I would strive to provide the best support possible 
to the USD(P) and the Secretary of Defense in fulfilling their 
statutory responsibilities to provide written policy guidance and to 
review contingency plans. I would also work closely with the Joint 
Staff, and where appropriate interagency partners, to help develop 
further opportunities to collaborate on planning guidance and reviews.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the PDUSD(P)?
    Answer. If confirmed, I expect to provide advice and counsel to the 
USD(P) and aid in the development of policy advice to the Secretary of 
Defense. I would expect that major challenges would include ensuring 
that the internal organization of the various policy oriented 
structures in Office of Secretary of Defense (OSD) continue a 
relatively seamless transition as new leadership continues to 
assimilate. I also expect to play important roles in reviews including 
the QDR and the NPR, and ensuring that adequate scrutiny and oversight 
are applied to the entire range of policy options that are reviewed in 
support of ongoing contingencies and possible future operations. Beyond 
ensuring that the Secretary of Defense receives the best possible 
policy input on these vital questions, another challenge will be to 
strengthen the organizational capacity of OSD Policy to support these 
and other efforts.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I expect to serve important advisory roles in 
a number of policy reviews, including the upcoming QDR and NPR, which 
provide an opportunity to assess these challenges and develop policy, 
plans, and investments to address them. More broadly, I expect to 
participate actively in a variety of DOD decisionmaking processes, 
including in particular strategy development and the PPBE system. I 
also expect to support the USD(P) in efforts to responsibly end the war 
in Iraq; ensure that the United States develops and employs a more 
effective strategy in Afghanistan and the surrounding region; prevent 
nuclear and WMD proliferation; combat terrorism; adapt the U.S. 
military for 21st century challenges; and strengthen America's 
relationships with key partners and allies.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the PDUSD(P)?
    Answer. If confirmed, I would give priority to the major challenges 
identified by the Secretary of Defense and the USD(P), and to 
strengthening the organizational capacity of OSD Policy to address 
them. I would also pay close attention to help develop and maintain 
effective working relationships with both military and civilian 
counterparts in the Department and the interagency.
                                  iraq
    Question. The President has announced his plans for the drawdown of 
U.S. forces in Iraq and their transition to an overwatch mission, to be 
completed by the end of August 2010. The U.S.-Iraqi agreement on the 
Withdrawal of United States Forces from Iraq and the Organization of 
Their Activities During Their Temporary Presence in Iraq (the 
``security agreement'') requires that U.S. combat forces withdraw from 
cities and towns by June 2009 and that all U.S. forces withdraw from 
Iraq by the end of December 2011. Additionally, if Iraqi voters reject 
the security agreement in a referendum scheduled for July 2009, U.S. 
troops would be required to withdraw by July 2010.
    What in your view are the greatest challenges facing the Department 
in meeting these deadlines and what actions, if any, would you 
recommend to maximize the chances of meeting these requirements?
    Answer. A critical goal over the next months and years in Iraq will 
be to maintain a secure environment to support elections, political 
reconciliation, and economic development. As the U.S. military 
continues to transition from providing population security to 
conducting overwatch, and then redeploys out of Iraq, continuing to 
build the capacity of the Iraqi military and police forces will be a 
continuing priority, as will ensuring the effectiveness of 
counterterror operations. As the U.S. military repositions and draws 
down its forces in Iraq, there are likely to be important strategic 
choices about the positioning of U.S. forces in Iraq and the region, as 
well as questions relating to prioritization of logistical support for 
the movement of U.S. forces. If confirmed, I would aid in the review of 
DOD plans and work with colleagues across the Department to make any 
necessary recommendations to the USD(P) and the Secretary of Defense.
    Question. What is your understanding and assessment of U.S. plans 
to support implementation of the President's drawdown plans and the 
security agreement requirements for repositioning and redeployment of 
U.S. forces, including contingency planning relating to the Iraqi 
referendum?
    Answer. Based on my current knowledge, my assessment is that the 
President's drawdown strategy reflects a careful consideration of 
events on the ground and respect for the bilateral agreements between 
the United States and Iraq. If confirmed, I look forward to learning 
more about the details of plans for repositioning and redeploying U.S. 
forces, as well as any contingency planning relating to the Iraqi 
referendum, and to supporting the USD(P) and Secretary of Defense in 
overseeing the implementation of strategy and plans.
    Question. To date, U.S. taxpayers have paid approximately $48 
billion for stabilization and reconstruction activities in Iraq. On 
April 8, 2008, Ambassador Crocker told the committee ``the era of U.S.-
funded major infrastructure is over'' and said the United States is no 
longer ``involved in the physical reconstruction business.''
    What do you believe is the appropriate role for the United States 
in reconstruction activities in Iraq going forward?
    Answer. I agree with and support the President's view that bringing 
in Iraq's neighbors to help with reconstruction efforts is an important 
priority. American policy should also continue to encourage and where 
necessary assist Iraqi institutions in building sufficient capacity for 
prioritizing, planning, and executing their own reconstruction 
projects.
    Question. What are your views on the responsibility of the Iraqi 
Government to assume the cost of training, equipping, and operations 
for its security forces?
    Answer. An important component of our strategy centers on the Iraqi 
Government successfully assuming control of the entire range of tasks 
necessary to organize, train, and equip its security forces. From DOD's 
perspective, this includes helping Iraqi institutions better formulate 
a defense strategy and acquisition policy that is sustainable and 
prudent in the absence of significant external assistance.
    Question. What are your views on the responsibility of the Iraqi 
Government to share the cost of combined operations with MNF-I forces 
and stability programs throughout Iraq?
    Answer. It is my understanding that the U.S. Government has not 
requested that Iraq contribute to the costs of MNF-I operations. It 
will be important for Iraq to organize, train, equip, and fully support 
its forces in order to assume responsibility for its own security. It 
is my view that the U.S. Government should encourage Iraq to focus on 
the development and support of its security forces.
    Question. What are your views on the responsibility of the Iraqi 
Government to share the increased operating and facilities costs 
associated with repositioning or withdrawal of U.S. forces in 
accordance with the U.S.-Iraqi security agreement?
    Answer. I understand that under the new U.S.-Iraqi Security 
Agreement, there is no Iraqi responsibility to pay costs associated 
with repositioning or withdrawal of U.S. forces. In order to best 
advance our interests, I believe Iraq's internal resources are best 
applied in the development and support of its own security forces.
                              afghanistan
    Question. In your view, what should be our strategic objectives in 
Afghanistan?
    Answer. The administration is considering this question as part of 
its ongoing Strategic Review of Afghanistan and Pakistan. I believe 
that America's most enduring interest in the region is preventing 
Afghanistan from devolving to a safe-haven from which terrorists can 
attack the United States or our allies and partners. If confirmed, I 
expect to support the Department's efforts in this critical challenge, 
which requires urgent and sustained attention.
    Question. What changes, if any, would you recommend to our current 
strategy in Afghanistan?
    Answer. The administration's Afghanistan/Pakistan strategy review 
is ongoing, and I am confident that it will identify any needed 
changes. My own view is that achieving our strategic objectives in 
Afghanistan requires a regional perspective; for example, Pakistan is 
key to the future of Afghanistan and vice-versa, and working with 
Pakistan, India and others in the region is likely to be essential to 
success in Afghanistan. More broadly, I believe that the United States 
should work with Afghanistan and our coalition partners to develop and 
pursue a more integrated and comprehensive approach to security, 
economic development, and governance. We must harness all of the 
instruments of national power and persuasion to be successful. It is 
imperative that we improve coordination and cooperation between 
Afghanistan and its neighbors, so that greater unity of effort is 
achieved among our coalition partners, international institutions, and 
the Government of Afghanistan.
    Question. Do you believe there is a need to develop a comprehensive 
civil-military plan for Afghanistan, akin to that used in Iraq?
    Answer. Yes, and as noted above I believe that such a plan must 
consider Pakistan and other key players in the region.
    Question. General David McKiernan, USA, Commander of the NATO 
International Security Assistance Force, and Commander U.S. Forces--
Afghanistan, has identified a need for four additional combat brigades 
and support units in Afghanistan, equaling up to 30,000 additional 
troops. President Obama has approved the deployment of an additional 
17,000 U.S. troops to Afghanistan by late spring and summer of this 
year. General McKiernan has said that these additional forces will 
provide him what he needs for the coming months, but additional forces 
will still be needed to meet fully his initial request.
    Do you support General McKiernan's request for additional forces?
    Answer. I agree with President Obama and Secretary Gates, who have 
both consistently stated that they believe the deteriorating security 
conditions in Afghanistan required the deployment of additional U.S. 
and international forces. I have not been fully briefed on the details 
of current operations and threat assessments, or internal deliberations 
associated with the ongoing Afghanistan/Pakistan strategy review. If 
confirmed, I look forward to assisting the USD(P) and others to assess 
the appropriate level of military forces required. I expect a critical 
component of these deliberations will concern the right balance between 
American, allied, and Afghan forces. Balancing the demand for 
additional forces while ensuring that the military is ready for other 
contingencies is one of the Department's key challenges.
    Question. If so, how should the Department support combat brigade 
increases in Afghanistan, in advance of the National elections?
    Answer. The President has approved the deployment of more than 
17,000 additional U.S. forces to Afghanistan to meet urgent security 
needs, particularly in the volatile southern provinces, including the 
critical necessity to train additional Afghan National Security Forces 
(ANSF). My understanding is that these forces will arrive in 
Afghanistan in advance of the presidential election in August. It is 
also my understanding that the administration is looking to our allies 
and partners to provide additional forces to ensure security during the 
elections as well as the success of the ANSF training mission. To my 
knowledge no decision has been made on the deployment of additional 
U.S. combat brigades beyond the 17,000 additional U.S. forces already 
planned.
    Question. If confirmed, would you support drawing down U.S. forces 
in Iraq faster or redirecting to Afghanistan combat brigades already 
slated to replace brigades in Iraq in order to meet General McKiernan's 
request?
    Answer. If confirmed, I would work closely with the USD(P), Joint 
Staff, and the Services to help ensure that DOD are carefully assesses 
and addresses risks in both theaters and prudently managing our 
military commitments, operational readiness, and stresses on the force.
    Question. If confirmed, would you support the temporary extension 
of combat brigades already deployed to Afghanistan? Would you support 
the accelerated deployment of combat brigades slated to deploy later 
this year to Afghanistan?
    Answer. If confirmed, I expect to support the USD(P) and Secretary 
of Defense in providing guidance that ensures deployment lengths of the 
combat brigades in Afghanistan strike an appropriate balance between 
meeting our commanders' operational requirements and maintaining the 
health and readiness of our forces.
    Question. The goal for increasing the size of the Afghan National 
Army (ANA) has been revised from 68,000 to approximately 134,000 
soldiers.
    In your view, should rapidly expanding the number of U.S. trainers 
to accelerate the expansion of the ANA be a top priority in 
Afghanistan?
    Answer. Building an effective, broadly representative, and 
respected ANA requires significant resources, and in my view must be a 
top priority. It is important that we look closely at the forces 
required for security in Afghanistan, and I understand that the ongoing 
Afghanistan/Pakistan strategy review is doing so. If confirmed, I will 
support the USD(P) and Secretary of Defense in providing oversight and 
guidance that ensures that there are the right numbers of trainers, 
mentors, and advisors with sufficient resources to accomplish their 
mission.
    Question. What recommendations, if any, do you have for encouraging 
or enabling our coalition partners to provide more training team 
personnel to embed with ANA units?
    Answer. In my view, helping the Afghan National Security Forces 
develop the ability to assume primary responsibility for security 
inside Afghanistan should be at the center of our long-term strategy. 
The United States and NATO have assumed a long-term commitment to 
develop Afghan forces that can eventually take the lead for security in 
Afghanistan. If confirmed, I look forward to supporting the 
Department's efforts to encourage our coalition partners to deliver on 
their commitments to provide training team personnel.
    Question. One of the main threats to U.S. and coalition forces in 
Afghanistan comes from cross-border attacks by the Taliban and 
extremist militants who find safe haven in Pakistan's border regions.
    What steps in your view need to be taken to eliminate or mitigate 
the threat to Afghanistan's security posed by Taliban and other 
extremist militants hiding out across the Afghan-Pakistan border?
    Answer. In my view, Afghanistan and Pakistan are in many respects a 
single theater of operations, and both President Obama and Secretary 
Gates have cited the need to eliminate the terrorist sanctuary in the 
border regions of Pakistan. This sanctuary poses a potential threat not 
only to Afghanistan, but to the region and indeed to the United States. 
Clearly however, there is no purely military solution. The United 
States must define and resource an integrated strategy to promote 
development and prevent terrorism across the Afghanistan-Pakistan 
border region, and I understand that this is a focus of the ongoing 
strategy review. If confirmed, I intend to work closely with my DOD and 
interagency colleagues in accordance with the results of the strategy 
review.
    Question. Would you agree that it is possible that developments 
within Afghanistan could lead to improvements in Afghanistan's security 
irrespective of developments in Pakistan's border areas?
    Answer. I agree that many of Afghanistan's challenges are internal. 
This is true of certain insurgent activities, the problem of warlords, 
poppy cultivation and narcotics production, and general criminality. 
However, I believe that we have learned from years of conflict that 
insurgent and terrorist safe-havens in Pakistan and illicit cross-
border activity must also be addressed to establish sustainable 
security in Afghanistan.
    Question. The ANA has shown itself to be effective, well-motivated, 
and respected by the Afghan people.
    If confirmed, would you support giving the ANA the lead in stopping 
cross-border incursions, either by transferring the mission of 
patrolling the border to the ANA or by bringing the Afghan Border 
Patrol under the ANA?
    Answer. I agree that the ANA has generally and increasingly shown 
itself to be effective, well-motivated, and respected. Clearly securing 
the border areas from cross-border incursions and illegal smuggling is 
an important element of a successful long-term strategy. The issue of 
command relationships between the Afghan Border Patrol and ANA is an 
area that I have not examined in detail, and if confirmed, would need 
to examine more closely.
    Question. The cultivation of poppies and trafficking of opium has 
reached alarming proportions in Afghanistan. Some estimate that over 50 
percent of Afghanistan's gross national product is associated with the 
illegal opium trade and that Afghanistan is at risk of failing as a 
nation state. Coalition strategies for countering the opium trade have 
not been effective to date.
    In your view, what strategy would be most effective in reducing 
opium production and trafficking in Afghanistan?
    Answer. Opium traffic continues to distort the Afghan economy, 
corrode the judicial system, and exacerbate corruption and criminal 
violence. In my view, countering the opium trade must include a nuanced 
and fully resourced coalition and Afghan strategy, including crop 
substitution and alternative livelihoods, interdiction and eradication, 
judicial reform, better law enforcement and intelligence sharing, and 
rural economic development and public information.
    Question. What should the role of the U.S. military forces be in 
the counterdrug program in Afghanistan?
    Answer. I understand that in the past year U.S. forces have been 
provided with new rules of engagement regarding counternarcotics 
activities, but I have not had the opportunity to review them in detail 
nor to assess their effectiveness. If confirmed, I look forward to 
reviewing the effectiveness of these policies and to discussing them 
further with the USD(P) and other officials.
    Question. What is the appropriate role for coalition nations and 
the larger international community in effectively addressing the 
counterdrug challenge in Afghanistan and the surrounding region?
    Answer. I believe it is critical for the international community to 
play a greater role across the full range of initiatives and operations 
designed to help the Government of Afghanistan strengthen Afghan 
institutions, ranging from the judicial and law enforcement system, to 
its intelligence service, and the Afghan National Security Forces, so 
that it can better take the lead in combating narcotics in Afghanistan.
    Question. What are the main challenges facing the U.S. and 
international community's reconstruction and development efforts in 
Afghanistan?
    Answer. In my view, high levels of violence in Afghanistan 
constitute the most immediate and pressing challenge to reconstruction 
and development efforts, which must feature prominently in any 
successful long-term strategy. The Afghan people have suffered through 
more than a generation of war, and the country's development challenges 
are immense. The majority of Afghans make their living from farming, 
yet extensive drought and failing agricultural infrastructure create 
openings for opium production to supplant the legal agricultural 
economy. While Afghanistan has seen improvements in health care in 
recent years, life expectancy remains below 45 years while more than 
half of Afghan children suffer from poor nutrition and disease. While 
progress has been made towards primary education in Afghanistan, fewer 
than half of adult males and only one in eight females can read, 
impeding the professionalization of the Afghan government and security 
forces and limiting economic growth.
    Question. If confirmed, what would your priorities be for 
addressing those challenges?
    Answer. If confirmed, I look forward to aiding the USD(P) in 
working with interagency partners to help implement an improved 
strategy that can effectively engage our coalition partners and the 
international community to advance reconstruction and development 
efforts in Afghanistan.
    Question. What changes, if any, would you recommend for the 
strategy, organizational structure, or resourcing of Provincial 
Reconstruction Teams in Afghanistan?
    Answer. I believe that Provincial Reconstruction Teams (PRTs) have 
been critical to the development work undertaken in Afghanistan and 
Iraq in recent years. If confirmed, I look forward to discussing the 
committee's concerns and ideas on the use of PRTs.
                                pakistan
    Question. What is your view of the current state of U.S.-Pakistani 
security relations? What steps, if any, would you recommend to improve 
these relations?
    Answer. Pakistan is a critical ally in the long-term struggle 
against extremism and terrorism. A confluence of overlapping security 
concerns--including presence of al Qaeda terrorists and Taliban-
affiliated extremists, United States and NATO lines of communication to 
Afghanistan, nuclear weapons, and an unstable economic environment--
make Pakistan a key national security interest for the United States. 
Pakistan and the United States share mutual interests in these areas 
and it is essential that we continue to build and cultivate a long-term 
relationship built on respect and trust regarding security and other 
overlapping interests. If confirmed, I look forward to learning more 
about all aspects of ongoing U.S.-Pakistan relations and helping the 
USD(P) shape effective policies for engagement by the U.S. military, 
the State Department, and other agencies.
    Question. What is your understanding and assessment of the efforts 
by the Pakistani Government to counter militant groups along the 
Afghan-Pakistan border and to fight terrorism in general?
    Answer. Any enduring solution to the challenge of defeating the 
terrorist and cross-border insurgent groups that threaten Afghanistan, 
Pakistan, and the international community requires Pakistan's strong 
support. While the Pakistani government has conducted several military 
operations against militants in border areas, the region remains a 
sanctuary for al Qaeda and Taliban-affiliated groups. If confirmed, I 
expect to assist the USD(P) in overseeing and reviewing the development 
of options to improve Pakistani counterterrorism and counterinsurgency 
capacities.
    Question. In your view, is the Pakistani Government doing enough to 
combat these threats? If not, what more should it be doing?
    Answer. While I have not been briefed in detail on any assessments 
of Pakistan's willingness and ability to combat these threats, I 
believe than any long-term success in countering them requires 
extensive and sustained attention by various elements of Pakistan's 
government. If confirmed, I look forward to assessing ways in which the 
United States and Pakistan can work better together to combat these 
shared threats.
                                 india
    Question. The attacks in Mumbai raise questions about what more 
might be done to help India guard against and respond to terrorist 
incidents and underscore the fragile nature of the relationship between 
India and neighboring Pakistan.
    What is your view of the current state of U.S.-India military-to-
military contacts?
    Answer. It is my understanding that the U.S.-India military-to-
military relationship is generally quite positive and is improving.
    Question. What do you believe the United States should do to assist 
the Indian Government in the prevention of and response to terrorist 
events?
    Answer. India is the world's largest democracy, and a strong and 
healthy U.S.-Indian partnership is an important American interest. The 
recent attacks in Mumbai have only underscored our shared interest in 
preventing and responding to terrorism. If confirmed, I will support 
the USD(P) in considering any additional measures, and in working with 
the State Department to carefully consider any requests for 
counterterrorism assistance from India.
    Question. In your view, what impact has this rise in tensions 
between Pakistan and India had on the stability of the South Asia 
region, generally, and on the prospects for security in Afghanistan?
    Answer. India, Pakistan, and Afghanistan are linked by history, 
culture, language, and trade, and progress in Afghanistan and broader 
regional stability cannot be achieved without the cooperation of all 
three. It is in America's national interest to play a constructive role 
in helping defuse any tensions and to help derive from the tragic 
attacks in Mumbai an opportunity for further cooperation between three 
of America's important allies.
                             future of nato
    Question. What are the greatest challenges and opportunities that 
you foresee for NATO over the next 5 years?
    Answer. Without question, the job of adapting our transatlantic 
alliance relationships to meet 21st century challenges is going to be 
arduous. The President and the Secretary of Defense have stressed our 
country's stakes in a strong, mutually supportive NATO alliance. To 
rebuild NATO solidarity, we need, first and foremost, a broadly agreed 
way-ahead for achieving durable progress on Afghanistan, especially 
where ISAF operations have been impeded by national caveats or the 
dearth of civilian expertise for critical missions. Closer to home, the 
alliance faces a more assertive Russia, continued instability in part 
of the Balkans and among former Soviet republics, and new concerns over 
cyber security and global climate change. My hope is that upcoming NATO 
summit in Strasbourg will give a strong boost to the drafting of a new 
strategic concept--one that helps to illuminate emerging threats and 
opportunities, as well as the capabilities required for effective joint 
action and ways for improving unity-of-action between NATO and the 
European Union.
    Question. Do you envision further enlargement of NATO, beyond 
Albania and Croatia, within the next 5 years?
    Answer. As the President and his national security team have 
stressed, NATO enlargement should continue so long as new candidates 
are democratic, peaceful, and willing to contribute to common security. 
Precisely which countries and within what applicable timeframe NATO 
would undertake further enlargement are important questions which the 
administration will need to address in close consultation with Congress 
and our allies. It is important that each NATO aspirant should be 
judged on its individual merits and progress in implementing political, 
economic, and military reforms.
    Question. What more can the United States do to encourage NATO 
members to develop the capabilities and provide the resources necessary 
to carry out NATO missions in Afghanistan and elsewhere?
    Answer. President Obama and Secretary Gates have both stressed the 
need for the United States and NATO to invest more in its nonmilitary 
instruments of national power. Many of our NATO allies have unique 
civilian capabilities that can enhance the overall effort in 
Afghanistan. The questions that both we and they now face are how best 
to mobilize these resources and target them to maximum positive effect. 
Also, as previously noted, forging a shared strategic view of the 
emerging threat environment and updating NATO's strategic concept from 
both a military and civilian governance perspective will be critical to 
success in Afghanistan.
                           nato-eu relations
    Question. A potential challenge facing the United States and NATO 
in the months and years ahead is the European Union's (EU) 
implementation of its European Security and Defense Policy (ESDP), that 
is, an EU capability to conduct military operations in response to 
international crises in cases where ``NATO as a whole is not engaged.'' 
At the same time, NATO and EU are working alongside each other in 
addressing a number of common security challenges, including police 
training in Afghanistan and crisis management in Kosovo.
    Are you concerned that the EU could assume a competing role, rather 
than a complementary role, to the NATO alliance?
    Answer. As Under Secretary Flournoy indicated during her 
confirmation process, the NATO-EU relationship should ideally be 
complementary. For defense matters and crisis management, NATO is the 
preferred vehicle for cooperation between our European allies and the 
United States in responding to a shared security challenge. At the same 
time, the EU's great strength lies is its ability to project economic 
power and political influence in a way that helps to attenuate 
conflict. While the current economic crisis has greatly stressed the 
EU's solidarity and its outreach to the east, its ``soft power'' role 
will clearly be critical over the long-term. Moreover, because both 
NATO and the EU draw largely from a single pool of national 
capabilities, cooperation is extremely important.
    Question. What steps do you believe that the United States and NATO 
should take to ensure that ESDP is implemented in a way that 
strengthens the alliance?
    Answer. Given the growth and diversity of ESDP-related activities 
in recent years, to include the EU's current anti-piracy operations off 
the coast of Somalia, we must explore every possible angle of NATO-EU 
collaboration at the operational level. I believe that priority should 
be given to promoting good communications and a common operating 
picture between NATO, its allies, and EU partners.
    Question. What is your view of the future of NATO-EU relations in 
areas relating to security, defense, and crisis management?
    Answer. As suggested above, both NATO and the EU have important 
roles to play in meeting future security, defense, and crisis 
management challenges. From an alliance perspective, it is important 
for all U.S. interagency partners to take a clear-eyed view of the 
entire range of current EU-activities--from civilian policing to 
military border control or other missions--to identify both areas of 
duplication and where closer NATO-EU coordination is required.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
humanitarian demining operations, and similar activities were used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military? If yes, would you advocate for expanding U.S. 
military-to-military engagement? If not, why not?
    Answer. Yes. If confirmed, subject to guidance provided by USD(P) 
and the Secretary, I will support a policy of continued U.S. military-
to-military engagement, and as appropriate, given opportunities and 
resource constraints, expanding this engagement. The emerging security 
environment requires that we engage with our partners and allies around 
the world, and work to build productive relationships with many states 
for which our past military-to-military engagements have been limited 
or absent entirely.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. Yes. I believe military-to-military contacts contribute to 
U.S. national security in a variety of important ways. Such activities 
can help to strengthen the capacity of partner nations to counter 
terrorism and other transnational threats, both within and beyond their 
borders, thereby potentially relieving stress on U.S. forces. They can 
help harmonize nations' views of common security challenges. Military-
to-military activities can also help safeguard investments made by 
other U.S. assistance programs. Finally, and very importantly, when 
performed effectively, military-to-military activities should show by 
example how military forces can act effectively while respecting human 
rights and civilian control.
                          stability operations
    Question. The U.S. experience in Iraq and Afghanistan has 
underscored the importance of planning and training to prepare for the 
conduct and support of stability operations in post-conflict 
situations.
    In your view, what is the appropriate relationship between DOD and 
other Federal agencies in the planning and conduct of stability and 
support operations in a post-conflict environment?
    Answer. Success in stability operations in a post-conflict 
environment requires integrating the efforts of civilian and military 
organizations in all aspects, from planning through execution. It is 
important for civilian agencies to lead in areas such as fostering 
political reconciliation, building accountable and legitimate 
institutions of government, restoring public infrastructure, and 
reviving economic activity. Military forces are best suited to helping 
provide a safe and secure environment and to assist in building 
accountable armed forces. Over the last several years, the U.S. 
military has learned many hard lessons, and if confirmed, I will work 
closely with the USD(P), military leaders and other U.S. Government 
agencies to ensure that the Department properly institutionalizes 
adaptation to better prepare for future challenges.
    Question. What lessons do you believe the Department has learned 
from ongoing operations in Iraq and Afghanistan with respect to 
achieving success in post-conflict stability operations?
    Answer. I believe that the Department has learned many important 
lessons, including the following: Improved interagency planning of 
operations is critical, and must start early; because the situation on 
the ground will change, strategies and plans must be adapted over time; 
DOD must retain significant capabilities for stability operations, and 
other agencies and departments must build increased capacity to support 
these operations; building partner capacity is an essential task which 
requires significant leadership attention and resources; engaging 
allies and other coalition partners to contribute, while often 
challenging, is essential; and it is critical that DOD and other 
departments/agencies better institutionalize wartime lessons, and fully 
resource those capabilities and organizational innovations that have 
proved critical to success in stability operations.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207).
    What are our strategic objectives in building the capacities of 
partner nations?
    Answer. I agree with Secretary Gates and others who have stated 
that the future security environment is likely to present more threats 
stemming from the consequences of state weakness than from displays of 
state strength. As the international system continues to become more 
complex and increasingly globalized, tensions arising from water and 
food scarcity, economic displacement, demographic shifts, and 
competition over resources are likely to present opportunities for 
terrorist and insurgent groups to undermine state, regional, and 
international stability. It is therefore critical that U.S. foreign 
policy support efforts that strengthen bilateral relationships; 
increase U.S. access and influence; promote militaries that respect 
human rights, civilian control of the military and the rule of law; and 
build capacity for common security objectives. In addition to promoting 
regional and global security, enhanced partner capacity reduces the 
risk of future military interventions and reduces stress on U.S. Armed 
Forces.
    Question. What is your understanding of the purpose of the section 
1206 global train and equip authority? What is your assessment of the 
implementation of the global train and equip program?
    Answer. It is my understanding that section 1206 was created to 
provide increased ability to build partner capacity than the more 
traditional routes of security assistance. Under law, it has two 
purposes: to build the capacity of a country's ability to conduct 
counterterrorism operations, and to help support stability operations 
where U.S. forces are participating. While I have not been involved in 
implementation of section 1206, I understand that the program enjoys 
strong support from embassies and combatant commands (COCOMs). If 
confirmed, I will assist the USD(P) and the Secretary in fully 
assessing how well this authority is working and whether it meets 
congressional intent.
    Question. What is the relationship of the global train and equip 
authority to other security assistance authorities, such as 
counternarcotics assistance and foreign military financing? What should 
be done to ensure that the global train and equip authority does not 
duplicate the efforts of these other assistance programs?
    Answer. It is important that both the Defense and State Departments 
work together to avoid duplication of effort among these important 
activities. The global train and equip authority fills two specific 
legal requirements: to build capacity for counterterrorism and for 
stability operations where U.S. forces are a participant. Foreign 
military financing serves a broader set of diplomatic and foreign 
policy objectives, to include improving bilateral relations, 
encouraging behaviors that advance U.S. interests, increasing access 
and influence, and building capacity where host-nation and U.S. 
interests overlap.
    Counternarcotics authorities are designed to allow DOD to support 
U.S. or other government efforts to counter the flow of narcotics 
globally. If confirmed, I would support the Department and any 
interagency assessment of potential overlaps and work to ensure DOD 
counternarcotics programs are focused on supporting U.S. and other 
agency efforts to counter the flow of narcotics.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (section 1207)? What is your 
assessment of how this authority has been utilized?
    Answer. I understand that section 1207 was designed to help the 
State Department's Coordinator for Reconstruction and Stabilization to 
build the capacity to become more operational. It was designed to bring 
civilian expertise to security, stabilization, and reconstruction 
missions, and complement existing U.S. military capabilities. While I 
have not been involved in implementation of section 1207, I believe 
that the program has been useful in supporting a more integrated 
approach to security, stabilization, and reconstruction challenges.
    Question. Secretary of Defense Gates has called for an expansion of 
the Government's resources devoted to instruments of non-military 
``soft power'', i.e., civilian expertise in reconstruction, 
development, and governance.
    Do you agree that there is a need to expand the Government's 
resources devoted to the ability of civilian departments and agencies 
to engage, assist, and communicate with partner nations?
    Answer. Yes. I agree strongly with President Obama and Secretary 
Gates that the United States should strengthen non-military instruments 
of statecraft.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the civilian departments and agencies of the Government, in the 
exercise of instruments of soft power?
    Answer. Generally, DOD's role should be to support, not lead, in 
the exercise of ``soft power.'' However, the Department plays an 
important role in helping to promote--through planning, exchanges, 
exercises, operations, and bilateral defense relationships--the 
conditions that enable these instruments to be applied successfully.
    Question. Which agency should have the lead in setting U.S. 
Government security assistance policy, the Department of State or DOD?
    Answer. The State Department should have the lead in setting U.S. 
foreign policy and foreign assistance priorities broadly, including 
security assistance. DOD has critical roles to play, however, in 
informing, developing, and implementing such programs in an effective 
and timely manner. In my view, strong interagency processes and 
relationships are vital to ensure successful security assistance 
policies.
                                 russia
    Question. What is your assessment of the current U.S.-Russian 
security relationship?
    Answer. Russia's recent aggressive external behavior is a source of 
deep concern. Of greatest concern is a growing pattern of Russian 
pressure, and, in some cases, aggressive action against sovereign 
states on its borders, most visibly including Georgia. Nevertheless, I 
believe that there is an opportunity to pursue a more constructive 
relationship with Russia on a range of issues including strategic arms 
control, non-proliferation, and counterterrorism.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. As President Obama noted, it is in no one's interest to see 
U.S.-Russian relations return to a Cold War posture. U.S. and Russian 
interests clearly overlap in such key areas as strategic arms control, 
non-proliferation (including North Korea and Iran), counterterrorism, 
Afghanistan, and counternarcotics. Ultimately, I believe we should work 
to create the conditions that make clear that stable, democratic 
neighbors on Russia's borders are in Russia's own interest.
    Question. In your view, what policy steps should DOD take to 
improve security relations with Russia? For instance, would you support 
increased military-to-military relations and exchanges with Russia?
    Answer. I believe that military-to-military and other exchanges 
with Russia are generally beneficial. If confirmed, in consultation the 
State Department as well as with Congress, I would assess areas where 
greater cooperation might be possible.
    Question. Are there common security issues that you believe would 
best be addressed jointly by the United States and Russia, or which 
cannot be adequately addressed without Russia's cooperation?
    Answer. U.S.-Russia cooperation is essential in many areas of 
importance to the United States, including strategic arms control and 
nonproliferation including policies toward North Korea and Iran. Such 
cooperation is highly desirable on many additional issues, including 
counterterrorism, counternarcotics, counterpiracy, and Afghanistan. To 
cite one example, Russia is already cooperating with NATO in 
Afghanistan by recently allowing the transit of nonlethal equipment 
through its territory for ISAF.
    Question. Would you support any joint development or other 
cooperative programs with Russia?
    Answer. If confirmed, I will support the USD(P) in exploring the 
potential for the Joint Data Exchange Center and additional cooperative 
programs with Russia.
                                  iran
    Question. Do you believe it would be in the U.S. interest to engage 
Iran in a direct dialogue to promote regional stability and security?
    Answer. I support President Obama's view that after careful 
preparation, the United States should be willing to pursue direct 
diplomacy with Iran. Furthermore, I fully support the President's view 
that we should not take any options off the table and that engagement 
has an important role to play in our efforts to prevent Iran from 
acquiring nuclear weapons and end their support for destabilizing 
activities and terrorism in the region.
    Question. Do you believe it would be in the U.S. interest to engage 
Iran in a direct dialogue regarding the narcotics problems in 
Afghanistan?
    Answer. I understand that this issue is being examined as part of 
broader interagency policy reviews on Iran and Afghanistan. My own view 
is that it is in the U.S. interest to engage Iran on Afghanistan 
security issues including narcotics, and to do so largely through 
multilateral exchanges.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program? Specifically, what actions do you believe that 
DOD ought to undertake to support diplomatic efforts to dissuade Iran 
from pursuing a nuclear weapon?
    Answer. The United States has not yet brought to bear all the 
elements of statecraft to deal effectively with this issue. The use of 
tough, direct, and principled diplomacy, working with our other 
international partners and allies, can increase the chances of making 
useful inroads. Helping to bring about auspicious conditions in the 
region is critical to generating leverage and therefore to success. 
Therefore I believe that DOD should continue developing the ongoing 
multilateral cooperation with the Gulf Cooperation Council countries 
and other allies in the region, in support of the State Department's 
diplomatic initiatives.
                                 syria
    Question. Do you believe it would be in the U.S. interest to engage 
Syria in a direct dialogue regarding regional security and stability?
    Answer. I understand that the administration is engaged in a review 
of its Syria policy. The Department of State should take the lead on 
any diplomatic initiatives with Syria. I agree with the President's 
view that Syria is best engaged in the context of an aggressive 
regional diplomatic approach.
                              saudi arabia
    Question. What is your assessment of the current state of U.S.-
Saudi security relations and defense cooperation activities? What 
changes, if any, would you recommend in this relationship?
    Answer. Saudi Arabia is one of our most important relationships in 
the Middle East. The United States continues to invest major efforts 
into our security assistance programs with the Ministry of Defense and 
Aviation (MODA) and Saudi Arabian National Guard (SANG). If confirmed, 
I will support the Department's efforts in coordination with State 
Department colleagues to encourage the Saudis to develop better ways 
and means to deter Iranian aggression, protect the Kingdom's critical 
infrastructure, enhance maritime security, enhance ballistic missile 
defense, counterpiracy, and conduct counterterrorism operations. I will 
also look for opportunities to increase Saudi support for multilateral 
security activities among GCC countries, to include regional air and 
missile defense and maritime security efforts.
                                 china
    Question. China is viewed by some in the United States as a 
potential threat and by others as a potentially constructive 
international partner that should be welcomed and integrated into the 
international economic and political community.
    To what extent do you believe the policies and actions of the 
United States and other major regional and international actors will 
affect the direction in which China develops, and the extent to which 
it becomes a cooperative partner or a competitor of the United States?
    Answer. As Secretary Gates noted in a recent speech, ``China is a 
competitor but not necessarily an adversary, and there is no reason for 
China to become an adversary.'' Without question, China's sustained 
rise over the past decade is due to its progressive integration into 
the global economy. While the ultimate destination of the Chinese 
people is for them to decide, I believe that the United States and 
other countries, both in East Asia and beyond, can exert a positive 
influence upon the direction of China's development. Indeed, no country 
has done more to assist, facilitate, and encourage China's development 
and international integration than the United States. That alone 
provides no assurance of China's willingness to play the role of 
constructive partner, but it does give both sides a clear appreciation 
of the stakes involved in maintaining a reasonable working relationship 
on a wide range of issues, including first and foremost in dealing with 
the current economic crisis.
    Question. What do you believe are China's political-military 
objectives regarding Taiwan, the Asia-Pacific region, and globally?
    Answer. I agree with the view that the overriding objectives of 
China's leaders appear to be to ensure the continued rule of the 
Chinese Communist Party, continue China's economic development, 
maintain the country's domestic political stability, defend China's 
national sovereignty and territorial integrity, and secure China's 
status as a great power. Within this context, preventing any moves by 
Taipei toward de jure independence is a key part of Beijing's strategy. 
Within each dimension there are both challenges and opportunities for 
the United States that will continue to deserve priority attention.
    Question. What do you see as China's objectives for its military 
modernization program and steady increases in defense spending?
    Answer. The pace and scale of China's military modernization, 
coupled with the lack of transparency surrounding both capabilities and 
intentions, are a source of concern for the United States as well as 
for its allies and the region more broadly. I believe that the United 
States should continue and expand engagement efforts to fully 
comprehend the future direction of China's programs in order to reduce 
the potential for miscalculations and build mutual trust. At the same 
time, we must strive for a prudent level of defense preparedness so as 
to ensure we are able to protect U.S. national interests and fulfill 
our alliance responsibilities.
    Question. What is your view of the U.S. policy of selling military 
equipment to Taiwan, despite China's objections?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
Taiwan Relations Act, which provides that the United States will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability. That policy has contributed to peace and stability in the 
region for nearly 30 years and is consistent with the longstanding U.S. 
calls for peaceful resolution of the Taiwan issue in a manner 
acceptable to the people on both sides of the Taiwan Strait. I believe 
our arms sales have been carried out in a responsible manner.
    Question. In its 2008 Report to Congress, the U.S.-China Economic 
and Security Review Commission concluded that China is asserting 
various excessive claims of sovereignty, including maritime, air and 
space, and also concluded that these claims have negative implications 
for the United States. Further, the Commission concluded that more must 
be done to ensure that China's rapid expansion of nuclear power does 
not result in the decline in safety or an increase in proliferation of 
nuclear weapons technology or expertise.
    How should the United States respond to excessive claims of 
sovereignty by China?
    Answer. The United States has a longstanding policy on Freedom of 
Navigation, and as recent events relating to the USNS Impeccable have 
demonstrated, does not acquiesce to excessive maritime, air, or space 
claims that restrict navigation and overflight rights under customary 
international law (as reflected for example in the U.N. Convention on 
the Law of the Sea). In addition to asserting U.S. rights, I believe 
the United States should work with other countries that have a stake in 
this issue to engage China.
    Question. What do you believe should be the role of DOD, if any, in 
helping to ensure that China's nuclear power industry does not 
contribute to the proliferation of nuclear weapons in the region?
    Answer. The Obama administration has reiterated that preventing the 
proliferation of WMD and delivery systems, along with related 
technologies and materials, is a key goal for the United States. I 
believe that DOD should work in the interagency process to ensure that 
any proliferation concerns relating to China including its nuclear 
power industry are expressed to the Chinese Government in appropriate 
forums, and should similarly support the development of appropriate 
interagency responses in the event that China takes steps that do 
contribute to proliferation.
    Question. Do you believe any changes in the quality or quantity of 
military-to-military relations with China should be made? If so, what 
changes and why?
    Answer. If confirmed, I would look closely at exchanges with 
China's armed forces at all levels and across a range of issues, 
including the recently opened dialogue on nuclear policy and strategy, 
which I understand is a priority for Secretary Gates. My general sense 
is that more can be done to improve the U.S.-China military-to-military 
relationship, both in terms of the quality and the quantity of 
exchanges between the armed forces of our countries. In general, I 
believe we should look to engage in a wide range of areas where we can 
work with China on priorities that improve transparency, reduce risks 
of miscalculation, and advance stability, both regionally and globally.
    Question. On March 8, 2009, five Chinese ships aggressively 
maneuvered in dangerously close proximity to USNS Impeccable, a U.S. 
ocean surveillance vessel operated by the Military Sealift Command 
conducting routine operations in the South China Sea.
    How do you think the U.S. Government should respond to provocative 
actions of this kind and what actions should the United States take to 
try to prevent similar incidents in the future?
    Answer. As noted above, the United States has a longstanding policy 
on freedom of navigation, consistent with customary international law 
and as reflected in the U.N. Convention on the Law of the Sea. I 
believe the United States should clearly assert and exercise our 
rights, work with other states with similar interests and perspectives 
as appropriate, and ensuring effective communication to reduce the 
risks of accident or miscalculation. I was very pleased by Secretary 
Gates' statement on March 18 that ``. . . based on the diplomatic 
exchanges that have taken place, since the aggressive acts against the 
Impeccable . . .there won't be a repetition of this [incident].''
                                 japan
    Question. Secretary of State Clinton recently signed a U.S. 
agreement with Japan on realignment of U.S. forces from Okinawa to 
Guam.
    What is your understanding of the key provisions of this agreement 
and the risks surrounding the likelihood of the move proceeding on the 
timeline previously established given financial considerations in Japan 
and the United States?
    Answer. My understanding of the Guam International Agreement 
(``Agreement between the Government of the United States of America and 
the Government of Japan concerning the Implementation of the Relocation 
of III Marine Expeditionary Force Personnel and their Dependents from 
Okinawa to Guam'') is that it was concluded as a means to formalize the 
accountability and transparency associated with Japan's eventual 
transfer of $2.8 billion for Guam development. The agreement also 
reiterates Japan's commitment to build the Futenma Replacement Facility 
(FRF) on Camp Schwab and surrounding waters in northern Okinawa, and to 
provide additional financing for development of required facilities and 
infrastructure on Guam. Both the FRF project in Okinawa and the Guam 
project are complex challenges, with ambitious target completion dates 
of 2014.
    The realignment of U.S. force posture in East Asia and the 
Pacific--and in particular the relocation of U.S. forces and their 
dependents to Guam--is a major focus for the U.S.-Japan alliance at 
present. I believe that while the timelines are challenging, both sides 
are committed to timely execution as well as ensuring a quality 
program.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula and the diplomatic efforts to date to persuade 
North Korea to verifiably dismantle its nuclear weapons program?
    Answer. North Korea's conventional military, WMD, and proliferation 
activities continue to pose a significant threat to regional peace and 
security. Also, recent North Korean provocations, including its 
apparent intent to launch a long-range missile (even if characterized 
as a satellite launch), are unhelpful to regional stability and 
relations. Working with our allies and other key parties in the region 
on diplomatic solutions is an essential element in addressing the 
totality of security problems on the Korean peninsula, the most vital 
of which is the denuclearization of North Korea. Likewise, it is 
essential to maintain the capabilities to deter North Korea's military 
threat and proliferation activities. Our strong alliances with South 
Korea and Japan remain instrumental in this regard. These alliances 
help maintain the peace and stability that has allowed the wider East 
Asia region to prosper over the past several decades.
    Question. What is your assessment of the threat posed to the United 
States, its forward-deployed forces, and its allies by North Korea's 
ballistic missile and WMD capabilities and the export of those 
capabilities?
    Answer. I believe that North Korea missile and WMD programs pose a 
serious threat to the United States, our forces, and our allies. This 
threat has been evidenced recently in North Korea's announced intention 
to launch what it refers to as an ``experimental communications 
satellite'' in April (long-range ballistic missiles and satellite 
launch vehicles derive from nearly identical technology). Strong 
alliances, regional partnerships, and forward military presence remain 
key means to deal with these threats. U.S. national capabilities, such 
as ballistic missile defense, are also an essential element in 
deterring the threat and defending our interests.
    Question. In your view, what should be done to maintain or 
strengthen deterrence on the Korean peninsula?
    Answer. The most critical ingredient for effective deterrence on 
the peninsula is found in the strength of the alliances between the 
United States and the Republic of Korea, and between the United States 
and Japan. If confirmed, I would work with DOD and interagency 
colleagues to continue strengthening these alliances.
    Question. In view of recent speculation regarding the possible poor 
health of North Korean leader Kim Jong-il, what do you believe the 
United States should be doing now, if anything, to prepare for the 
possibility of a change in leadership in North Korea?
    Answer. The manifestations of sudden change in North Korea could 
take different forms, including a sudden health crisis or change in 
leadership in Pyongyang. If confirmed, I will work to ensure that the 
United States and our allies are capable of addressing sudden onset 
crises. Fundamentally, our focus should be ensuring we are ready to 
maintain stability in the region, support defense of the Republic of 
Korea and Japan, and prevent the proliferation of WMD or other 
dangerous technologies from North Korea.
    Question. If confirmed, would you undertake a review of the status 
of the efforts to obtain from North Korea remains of U.S. 
servicemembers who have been missing since the Korean War ?
    Answer. Yes.
    Question. Under what circumstances do you think that such efforts 
should resume?
    Answer. I believe these efforts should resume once appropriate 
conditions exist that both enable us to carry out the important mission 
and ensure the safety of our personnel.
                           republic of korea
    Question. The alliance between the United States and the Republic 
of Korea (ROK) is a key pillar of security in the Asia Pacific region. 
This relationship has gone through periods of inevitable change.
    What is your understanding of the current U.S. security 
relationship with the ROK?
    Answer. I believe that the U.S.-ROK alliance remains strong and 
continues to ensure peace and stability on the Korean Peninsula and in 
Northeast Asia. In the face of changes in the regional security 
environment, the United States and the ROK have made great strides in 
transforming their collective deterrent and defense posture. In 
particular, the ROK has made major strides in developing its defense 
capabilities, commensurate with its economic development. Consequently, 
the alliance remains relevant and capable both for deterring aggression 
on the peninsula and for addressing regional and global security 
issues.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. If confirmed, I would support the realignment of U.S. 
forces on the Korean peninsula and the return of facilities that our 
forces no longer require. The United States is also working toward new 
command and control relationships with Korea and we need to ensure that 
contingency plans remain appropriate to the situations we face. 
Additionally, I believe it is important to ensure the U.S. and Korean 
publics continue to understand the enduring mutual benefits derived 
from this alliance, and that we work effectively with the Republic of 
Korea as it plays an increasing role in regional and global security 
issues commensurate with its economic clout and influence.
    Question. What is your view regarding the planned timing of the 
transfer of wartime operational command to the ROK?
    Answer. As Secretary Gates said publicly following his meeting with 
the Korean Minister of Defense last October, the ROK military forces 
and U.S. forces are on track to complete the alliance agreement to 
transition wartime operational control in 2012. This effort will enable 
the ROK military to take the lead role in the defense of Korea. If 
confirmed, I will support the efforts of the Secretary, this committee, 
and others to ensure that the important transition in command 
relationships is carried out in a manner that strengthens deterrence 
and maintains a fully capable U.S.-ROK combined defense posture on the 
Korean Peninsula.
    Question. What do you view as the optimal timeline, and major 
milestones, for consolidating U.S. forces south of Seoul at Camp 
Humphreys?
    Answer. I understand that Camp Humphreys represents an essential 
part of our joint effort with our ROK allies to reduce the overall U.S. 
military footprint and consolidate U.S. forces in modern and enduring 
facilities away from the congested center of Seoul. This realignment of 
U.S. forces is mutually beneficial, and therefore it is our desire to 
implement these plans as efficiently as possible. If confirmed, I look 
forward to working with United States Forces Korea, U.S. Pacific 
Command, and others in DOD to review the timeline involved.
                     u.s. africa command (africom)
    Question. The creation of Africa Command has raised questions about 
the role of DOD in U.S. development efforts in Africa.
    What do you see as the role of AFRICOM in U.S.-African policy and 
in development and humanitarian engagement?
    Answer. The Department of State and USAID lead U.S. foreign policy 
and development engagements abroad, to include Africa. AFRICOM is 
intended to promote a coordinated engagement approach to Africa. 
Ideally, AFRICOM's supporting role should promote national security 
objectives by working with African states, regional organizations, and 
the African Union to enhance regional stability and security. 
Specifically, AFRICOM should help pursue closer U.S. military-to-
military relations with African states. If confirmed, I would support 
DOD's efforts to maintain strong interagency relationships and work 
with Congress to ensure that AFRICOM assists in advancing U.S. foreign 
policy and national security objectives.
    Question. AFRICOM's leadership has promoted the concept of ``active 
security,'' with an increased emphasis on theater security cooperation, 
as a guiding principle of the command.
    Are DOD's current security assistance authorities (e.g., section 
1206 train-and-equip authority) and funding levels adequate to fulfill 
AFRICOM's mission? If yes, please explain. If not, why not?
    Answer. I have not been briefed in detail on AFRICOM's current and 
projected requirements to fulfill its mission. If confirmed and if 
asked to study the matter, I will provide my views to USD(P) Flournoy 
and if requested the members of this committee.
    Question. The Combined Joint Task Force-Horn of Africa (CJTF-HOA) 
mission appears to have shifted from counter-terrorism to civil and 
humanitarian affairs since its inception in 2002.
    What do you see as CJTF-HOA's primary mission?
    Answer. I understand that the CJTF-HOA is designed to support the 
State Department's and DOD's security strategy in Africa to counter 
violent extremism, in part through building partner capacity and 
promoting regional stability.
    Question. Do you believe it should continue as an enduring 
presence? If yes, what recommendations, if any, might you make 
regarding manpower, resources, and activities?
    Answer. If confirmed, I would support the USD(P)'s interaction with 
the Joint Staff and with AFRICOM to assess this issue, and would aid in 
efforts to ensure that U.S. security interests in the region are 
supported by an appropriate, properly balanced and resourced posture to 
promote long-term stability in the region.
                                 darfur
    Question. More than 4 years after then-Secretary of State Colin 
Powell's declaration that genocide was taking place in Darfur, the 
death toll has continued to climb, the camps for displaced persons have 
grown more crowded, and humanitarian access to help people in need has 
diminished in many areas. The member nations of the United Nations have 
pledged to send 26,000 peacekeepers to Darfur, but have sent less than 
half that number and has not provided them with the helicopters, 
vehicles, and other tools to fulfill their mission.
    What do you believe is the appropriate role of the United States 
and, in particular, DOD, in assisting with the deployment and mobility 
of this peacekeeping mission, given that its creation was largely a 
U.S. initiative and today is largely funded by a variety of U.S. 
assistance programs?
    Answer. I support President Obama's statements concerning the need 
to pressure the Sudanese authorities in Khartoum to halt the genocide 
in Darfur. It is my understanding that both the Defense and State 
Departments have supported the deployment of African contingents to the 
U.N. Darfur mission by providing a variety of enablers, to include 
equipment, logistical expertise, deployment assistance, and airlift.
                      united nations peacekeeping
    Question. The DOD has provided logistics, communications, and 
headquarters staff to a variety of U.N. peacekeeping missions over the 
past several years.
    In your view, what support, if any, should DOD provide to U.N. 
peacekeeping missions?
    Answer. The U.N. operates peacekeeping forces in a wide variety of 
venues--from Central and West Africa to the Middle East and the 
Caribbean--and the United States has important security and 
humanitarian stakes in the success of these missions. To ensure the 
best use of DOD's logistics, communications, headquarters staffing, and 
other forms of enabling assistance, the issue of U.S. support for U.N. 
field missions is certainly worthy of careful study in close 
consultation with our State Department colleagues, and subsequently 
with other U.N. member states.
    Question. The United States along with its partners in the G-8 
sponsored an initiative to train 75,000 peacekeepers by 2010. This 
program, known as the Global Peace Operations Initiative (GPOI), is run 
by the Department of State. DOD has provided varying degrees of support 
since the program's inception.
    In your view, what is the appropriate role of DOD in this program 
and, more generally, in the training of peacekeepers?
    Answer. DOD has long played an important role in the training and 
equipping of international peacekeeping units. In this regard, I 
believe that DOD collaboration with State is important to successfully 
identifying and vetting viable partners, analyzing indigenous 
capacities, developing sustainable train-the-trainer programs, and 
promoting self-sufficiency in this critical area so that more nations 
can more effectively contribute to the increasing demand for skilled 
peacekeepers around the world.
    Question. If confirmed, would you support or oppose an extension of 
the GPOI program and its mandate beyond its scheduled end date in 2010? 
Please explain.
    Answer. In general, the United States has a strong interest in 
helping to expand the pool of available peacekeepers worldwide, 
including those with whom we may need to operate jointly. President 
Obama has stated his support for continued funding for GPOI. If 
confirmed, I would do my part to work closely with State Department 
colleagues as well as Members of Congress to ensure GPOI supports the 
President's objectives in this area.
                                somalia
    Question. In your view, what should the U.S. policy towards Somalia 
be and what do you believe to be the appropriate role of DOD in support 
of that policy?
    Answer. Somalia's political turmoil and violence poses not only the 
specter of continued humanitarian suffering but also a security danger 
in that it provides a safe haven to violent extremists and, more 
recently, to pirates who prey upon international shipping routes 
through the Gulf of Aden. Instability in Somalia is a threat to the 
region and potentially to the United States and our allies. If 
confirmed, I will support DOD's efforts to work with the interagency to 
develop a coordinated U.S. national security policy toward Africa that 
addresses the U.S. strategic interests in the Horn of Africa, and to 
determine how DOD can and should best support this policy.
                          combating terrorism
    Question. What is your understanding and assessment of the 
Department's comprehensive strategy for combating terrorism, both at 
home and abroad?
    Answer. The Department's strategy for combating terrorism has three 
pillars: protecting the homeland, disrupting and attacking terrorist 
networks, and countering ideological support for terrorism. The 
strategy includes indirect approaches aimed at building the capacity of 
partner governments and their security forces as well as direct 
approaches to defeat terrorist networks. Consistent with existing law, 
the Department's role within the United States is limited to providing 
support to civil authorities.
    It is my view that the United States needs a more comprehensive and 
cohesive strategy for combating terrorism. An integrated interagency 
approach is needed that combines all tools of statecraft, and fully 
engages allies and international organizations. If confirmed, and as 
directed, I look forward to working with the Assistant Secretary of 
Defense (SOLIC & IC) and other colleagues within the Department and 
across the interagency to undertake a review and assessment of our 
strategy to ensure it meets the goals of the President and the 
Secretary of Defense.
    Question. How can the Department best structure itself to ensure 
that all forms of terrorism are effectively confronted?
    Answer. While I have not been briefed in enough detail to provide a 
complete answer, if confirmed and as directed I would welcome the 
opportunity to work with the Assistant Secretary of Defense (SOLIC & 
IC) to assist the USD(P) and the Secretary of Defense in evaluating the 
Department's counterterrorism posture to help ensure that it is 
appropriately organized to protect and defend against all forms of 
terrorism.
    Question. What changes, if any, would you recommend to the defense 
intelligence community to ensure optimal support to combating terrorism 
and other homeland security efforts?
    Answer. Timely and accurate intelligence is a vital part of U.S. 
counterterrorism efforts. If confirmed, I will help the USD(P) continue 
the close relationship Policy has with the Under Secretary of Defense 
for Intelligence and the Intelligence Community to ensure intelligence 
and operations are mutually supportive.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
agencies?
    Answer. I expect that there is room for improvement in this area of 
vital national interest, but because of the sensitive nature of some 
activities, I do not at present have a comprehensive view. If 
confirmed, I look forward to developing such a view, and supporting the 
refinement and implementation of a comprehensive interagency approach 
to the challenge of combating extremism and terrorism.
    Question. The Department and Intelligence Community have determined 
that some terrorist organizations are beginning to rely more heavily on 
producing and trafficking narcotics to fund their operations.
    Do you believe the DOD should have the lead for the U.S. 
Government's efforts to combat the nexus between narcotics and 
terrorism?
    Answer. The link between narcotics and terrorism is a serious and 
growing issue. This requires a comprehensive interagency approach, in 
which DOD plays an important part. The Department possesses important 
tools and provides extensive capabilities designed to counter networks 
that support both terrorist and international criminal organizations. 
If confirmed, I expect to support the USD(P) and work with ASD(SOLIC & 
IC) to help review DOD's role in this area and coordinate with other 
elements of the U.S. Government to determine the best way forward.
                              war on drugs
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States.
    What is your assessment of the ongoing efforts of the United States 
to significantly reduce the amount of drugs illegally entering into our 
Nation?
    Answer. Drug trafficking is a significant and growing threat that 
affects not only the United States but many of our key partnership 
including Afghanistan, Colombia, El Salvador, Guatemala, Honduras, 
Mexico, Nicaragua, and parts of West Africa. Traffickers often employ 
advanced technology and corrupt governments to facilitate the drug 
trade. Although the U.S. Government has made progress in coordinating 
interagency efforts, there is more to be done to counter this threat. 
If confirmed, I will assist the Department's effort to work with its 
interagency partners in assessing its efforts to date and develop an 
improved way forward.
    Question. In your view, what is the appropriate role of DOD in U.S. 
counterdrug efforts?
    Answer. The Department's global focus, organization, capabilities, 
and its ability to act as an honest broker provide a useful complement 
to law enforcement agencies and make it an effective partner in global 
counterdrug efforts. DOD brings effective tools and global capabilities 
to interagency efforts to counter both terrorist and international 
criminal networks that often utilize the drug trade.
    The international community has detected a new narcotics 
trafficking route from Colombia to Europe via West Africa. In your 
view, what should be the role of the United States in countering the 
flow of narcotics to nations other than the United States?
    The spread and trafficking of narcotics is a global issue and, like 
other complex global issues, cannot be effectively addressed by 
individual states pursing different and separate strategies. The United 
States should work with its allies and international organizations to 
counter the drug trade through coordinated and strategic civil-military 
efforts.
                         nuclear posture review
    Question. If confirmed, what role will you play in the NPR?
    Answer. If confirmed, I would support the USD(P) in overseeing the 
NPR. I would expect to engage other senior officials in DOD, as well 
officials in the Departments of Energy and State in this review, and to 
consult fully with members of this committee.
               dod's cooperative threat reduction program
    Question. Do you think the Cooperative Threat Reduction (CTR) 
program is well-coordinated among the U.S. Government agencies that 
engage in threat reduction efforts in Russia--namely, DOD and the 
Departments of State and Energy?
    Answer. I am aware that President Obama has expressed his concern 
about the need to break bureaucratic logjams that have slowed the 
progress of CTR and other threat reduction programs in the recent past. 
If confirmed, I will support USD(P) in giving this matter the urgent 
attention it deserves.
    Question. The CTR program was recently expanded to geographic areas 
outside the former Soviet Union.
    What in your view are the key proliferation concerns that CTR 
should address outside the former Soviet Union?
    Answer. Expanding the geographic reach of the Nunn-Lugar CTR 
program beyond the former Soviet Union strikes me as an important step 
toward reducing WMD threats and building global partnerships. I am also 
aware that recent bipartisan reports, including the report from the 
Commission on the Prevention of Weapons of Mass Destruction, 
Proliferation, and Terrorism, have stressed the importance of reducing 
nuclear threats wherever possible and highlight bioterrorism as a key 
proliferation concern demanding greater attention. If confirmed, I will 
look forward to working closely with Congress, other U.S. Government 
agencies, and global partners to strengthen our efforts to prevent WMD 
proliferation and terrorism.
    Question. The CTR program has completed or will soon complete the 
bulk of the scheduled work with Russia.
    What in your view is the next step in the U.S.-Russia CTR program?
    Answer. I believe that CTR programs in Russia should remain a high 
priority. Clearly, the Nunn-Lugar CTR program represents an important 
and very successful relationship between our two countries which has 
endured even as difficulties have grown in other aspects of our 
relations. If confirmed, I will support USD(P) in expanding this 
relationship and the capabilities built through CTR for mutually 
beneficial purposes to reduce the risks of WMD proliferation and 
terrorism outside of Russia.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. I support U.S. accession to the Law of the Sea Convention. 
It is in America's enduring interest to be at the forefront of 
promoting the rule of law, including in the world's oceans. Were we to 
become a party to the Convention it would send a clear signal to the 
world that we are committed to advancing the rule of law at sea. 
Additionally under the Convention, we would provide the firmest 
possible legal foundation for the navigational rights and freedoms 
needed to project power, reassure our friends and allies, deter 
adversaries, respond to crises, sustain deployed combat forces, and 
secure sea and air lines of communication that underpin international 
trade and our own economic prosperity.
    Question. From a national security standpoint, what do you see as 
the legal advantages and disadvantages to being a party to UNCLOS?
    Answer. Were the United States to join the convention, it would 
provide a seat at the table when rights vital to our national interests 
are debated and interpreted, including the maritime mobility of our 
armed forces worldwide. The navigation and overflight rights and high 
seas freedoms codified in the Convention are essential for the global 
mobility of our Armed Forces and the sustainment of our combat forces 
overseas. America has more to gain from legal certainty and public 
order in the world's oceans than any other country. More than 150 
nations are parties to the Convention. By becoming a party, the United 
States will be better positioned to work with foreign air forces, 
navies, and coast guards to cooperatively address the full spectrum of 
21st century security challenges. More so than at any time in our past, 
it is in our national interest to lead, and be seen to lead, by helping 
frame a judicious and prudent approach to better ensure stability at 
sea.
             bilateral defense trade cooperation agreements
    Question. Defense trade cooperation agreements between the United 
States and the United Kingdom and between the United States and 
Australia are currently pending before the Senate Foreign Relations 
Committee.
    What are your views on the U.S.-U.K. and U.S.-Australia defense 
trade cooperation agreements?
    Answer. While I have not had the opportunity to review these 
agreements in detail, I support the general objectives of the U.S.-U.K. 
and U.S.-Australia Defense Trade Cooperation Treaties. I also believe 
that robust interoperability with these two key allies along with the 
enhanced protection of our defense articles pursuant to the treaties 
will further America's national security interests. If confirmed, I 
will support the USD(P) and the State Department in working with the 
Senate to resolve any issues related to ratification.
    Question. In your view, are these agreements in the national 
security interest of the United States?
    Answer. I have not had the opportunity to review these agreements 
in detail, but I believe that the intent of the treaties to increase 
defense trade and interoperability with these two key allies is sound 
and in the interest of our national security. If confirmed, and if 
asked, I will review the treaties in detail and support the USD(P) and 
the Department of State in working with the Senate to address any 
issues.
                              arms control
    Question. What role do you see for arms control as a means of 
improving U.S. national security?
    Answer. Arms control has been an important element of U.S. national 
security policy since the Cold War and it remains important today. This 
is especially so if such negotiations can help to stave off unwanted 
competition among states and strengthen our efforts to curb 
proliferation. Engaging other nations in a process that builds 
confidence, increases transparency, reduces arsenals, and enhances 
cooperation has been, and remains, important to our interests. Arms 
control negotiations can also further progress towards the President's 
long-term goal of eliminating nuclear weapons.
    Question. What are your views on the next bilateral steps to 
address nuclear weapons issues between the United States and Russia?
    Answer. High level engagement between Washington and Moscow will be 
critical in addressing the wide variety of issues, including (but not 
limited to) nuclear weapons issues. One key issue that both nations 
will need to address in the coming months is the expiration of START in 
December 2009.
    Question. What elements of START, if any, do you believe should be 
retained in any future agreement?
    Answer. I believe that the most important element to retain in any 
future agreement is the extension of essential monitoring and 
verification provisions contained in the current START. In addition, I 
believe that the United States should pursue further reductions in 
strategic warheads, and should encourage Russia to structure its 
strategic forces in ways that promote predictability, security, and 
strategic stability.
    Question. In the absence of a START extension or successor treaty, 
what steps would you take to extend, expand, and to verify the Moscow 
Treaty?
    Answer. If confirmed, I would support the USD(P) in determining the 
best path forward with respect to START, the Moscow Treaty, and any 
successor agreements.
    Question. What is your view of the role of the Nuclear NPT in U.S. 
national security, and how should it be strengthened or improved?
    Answer. The NPT is an important tool for constraining further 
nuclear proliferation. A first priority in preserving and strengthening 
the treaty regime is working with our international partners to roll 
back North Korea's nuclear weapons program and stop Iran from acquiring 
nuclear weapons. We should also work to strengthen the treaty by 
encouraging states to adhere to the NPT and to agree to IAEA safeguards 
inspections. I support President Obama's view that we need to work with 
our allies, partners, and other nations to achieve a successful outcome 
in the 2010 NPT review conference. One way to strengthen the NPT regime 
would be to ensure that any violation automatically triggers sanctions. 
Others should be examined as well. I believe that success in these 
efforts will be more likely if the United States sets an example by 
pursuing negotiated reductions with Russia.
    Question. Do you support a Comprehensive Test Ban Treaty (CTBT)?
    Answer. Yes, I share the President's assessment that ratifying and 
ultimately acceding to the CTBT is in America's national security 
interest, and believe that with careful planning and continued 
investment that the United States can ensure the safety, reliability, 
surety, security, and sustainability of our nuclear deterrent under a 
CTBT.
                       ballistic missile defense
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes. I understand that the United States currently has 
operationally deployed a range of sea-based and ground-based ballistic 
missile defense systems to protect our forward-based forces, allies, 
and other friendly nations against short- and medium-range missile 
threats and to defend the U.S. Homeland against longer-range threats. 
If confirmed, I would do my part to ensure that further U.S. 
development and deployment of missile defenses is done in a pragmatic, 
cost-effective fashion, and is appropriate to the threats of today and 
the potential threats of tomorrow.
    Question. Do you agree that U.S. missile defense efforts should be 
prioritized on providing effective defenses against existing ballistic 
missile threats, especially the many hundreds of short- and medium-
range ballistic missiles that are currently within range of our 
forward-based forces, allies, and other friendly nations?
    Answer. I agree that the threats posed by short- and medium-range 
ballistic missiles are growing and deserve priority attention. At the 
same time, I believe that it is important to defend the U.S. Homeland 
against potential longer-range threats that may emanate for example 
from North Korea and/or Iran. If confirmed, I will support efforts to 
review our BMD programs and consult with Congress to ensure we have an 
appropriate mix of short-, medium-, and long-range ballistic missile 
defense capabilities that are responsive to existing and emerging 
threats to our Homeland, deployed forces, allies, and other friendly 
nations.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include the Operational Test 
and Evaluation Office, in order to assess operational capabilities and 
limitations of ballistic missile defense systems, prior to making 
decisions to deploy such systems?
    Answer. Yes. While missile defense testing is not a Policy 
responsibility, I strongly concur with the view that missile defense 
testing should be operationally realistic and should involve the 
Operational Test and Evaluation office as well as our warfighters.
    Question. If the United States and Russia could agree on a 
cooperative approach on missile defense issues, do you believe it would 
be in the security interest of the United States to pursue such an 
effort?
    Answer. I believe that it is possible that a cooperative approach 
on missile defense could be in U.S. interests; the answer would depend 
on the details of such an approach. More broadly, I believe that 
working with Russia in areas where we have common security concerns can 
be in the interests of both of our countries. Efforts to cooperate with 
Russia on missile defense to address the risk of ballistic missile and 
WMD proliferation go back to the 1990s. I understand that in recent 
years, the United States has continued to explore missile defense 
cooperation with Russia. If confirmed, I will review the recent 
efforts, consult with colleagues in DOD and the State Department, and 
help recommend an appropriate course of action for possible 
consideration by the administration and Congress.
    chemical weapons elimination and the chemical weapons convention
    Question. Do you agree that the Department should plan and budget 
for the most expeditious elimination of the U.S. chemical weapons 
stockpile, consistent with safety and security requirements, in order 
to complete the destruction of the U.S. chemical weapons stockpile as 
close to the Chemical Weapons Convention (CWC) deadline as possible?
    Answer. Yes. I am aware, however, there are competing priorities to 
balance. Although I have not yet examined this issue in detail, I 
understand that in 2006, the United States informed the Organization 
for the Prohibition of Chemical Weapons (OPCW) that it would not meet 
this deadline, but would accelerate the destruction effort as much as 
practical. To date, I understand that the Department is on track to 
destroy 90 percent of the U.S. stockpile by the CWC deadline.
                   space management and organization
    Question. What role, if any, do you believe the Principal Deputy 
Under Secretary of Defense for Policy (PDUSD(P)) should play in the 
formulation of national security space policy?
    Answer. Outer space is becoming a more contested arena for the 
United States; we cannot take a complacent attitude about the 
motivations and capabilities of other space-faring actors. As the 
administration conducts its policy review, I believe that, as directed, 
the PDUSD(P) should support the Secretary of Defense and the USD(P) in 
defining U.S. interests, objectives, and options, and in representing 
DOD perspectives to the interagency. I understand that the recent 
congressionally-directed Review and Assessment of the Organization and 
Management of Space in DOD has recommended the development of a 
National Space Strategy. If this initiative is adopted and I am 
confirmed, I will consult with Secretary Gates and Under Secretary 
Flournoy on the desired role of the PDUSD(P) in the development and 
coordination of any such strategy.
          national guard and reserve role in homeland defense
    Question. There is current debate about the role the National Guard 
and Reserves should play in defending the Homeland and in providing 
support to civilian authorities with responsibility for Homeland 
Security.
    What role do you believe the National Guard and Reserves should 
have in defending the Homeland as compared to supporting Homeland 
Security?
    Answer. The National Guard and the Reserves--the Army Reserve, the 
Navy Reserve, the Marine Corps Reserve, and the Air Force Reserve--do 
indeed have complementary roles to play in defending the Homeland and 
in supporting Homeland Security. Their allocation for Homeland Security 
as opposed to Homeland Defense roles is something that deserves careful 
review. The National Guard and Reserves have extensive competencies and 
capabilities vital to defending the United States from attack by 
executing military missions to deter, defend against, and defeat those 
who threaten the United States and to assisting civil authorities in 
securing the United States from the threat and effects of natural 
disasters, terrorism, and other manmade disasters.
                            homeland defense
    Question. What is your understanding of the difference, or 
delineation, between the missions of Homeland Defense and Homeland 
Security?
    Answer. It appears that DOD and Department of Homeland Security 
(DHS) coordination is still a work in progress. The two Departments do 
indeed have complementary and mutually supporting roles, missions, and 
responsibilities. DOD is responsible for the military defense of the 
United States from attack upon its territory at home and securing its 
interests abroad; its military missions aim to deter, defend against, 
and defeat those who threaten the United States. For its part, DHS is 
responsible for leading the Nation's efforts to prepare for, protect 
against, respond to, recover from, and mitigate against the risk of 
natural disasters, acts of terrorism, and other manmade disasters; to 
secure the Nation's borders, ports, and airports; and to ensure that 
the Federal Government works with States, localities, and the private 
sector as a true partner in prevention, mitigation, and response. As 
necessary, and consistent with the law, DOD provides support to DHS in 
the execution of its missions.
    Question. What do you believe are the principal roles and missions 
of the Department of Defense for Homeland Defense, and how do they 
relate to the roles, missions, and responsibilities of DHS?
    Answer. See preceding answer.
  reorganization of the office of the under secretary of defense for 
                                 policy
    Question. What is your understanding of changes that have been 
approved, if any, to the organization of the OUSD(P)?
    Answer. In response to questions from the Senate Armed Services 
Committee during her confirmation process, now-USD(P) Flournoy stated 
that she anticipated the need to shift some portfolios to better align 
the Policy organization with President Obama's and Secretary Gates' 
policy objectives. My understanding is that Under Secretary Flournoy 
has advised the Secretary of Defense of potential changes intended to 
elevate the functions of strategy development and force management to 
better provide policy guidance for the Secretary, to enhance the 
oversight and policy role regarding strategic issues (e.g., combating 
WMD, nuclear deterrence, missile defense, space, and cyberspace 
issues), and to improve integration of efforts across OSD Policy. It is 
my understanding that the Secretary of Defense has approved Under 
Secretary Flournoy's plan to realign these and other selected functions 
within the organization.
    Question. What would be your role in implementing any proposed 
changes to the organization of the OUSD(P)?
    Answer. If confirmed, I would support the USD(P) as directed in 
implementing changes that support alignment of the Policy organization 
to the President's and Secretary of Defense's policy objectives, and 
would provide my assessment of the effectiveness of these changes over 
time to the USD(P), the Secretary of Defense, and if requested, to the 
Armed Services Committees.
                      private security contractors
    Question. Do you believe DOD and other Federal agencies should rely 
on contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. In my view, wherever possible it would be preferable for 
military and where appropriate other government security personnel 
(U.S., coalition, and/or host nation) to perform such security 
functions. I understand and appreciate the concerns of Congress on this 
issue and believe that a comprehensive review of the role of military 
contractors on the battlefield, and the current and potential future 
capacities of DOD and other agencies, is needed in order to set the 
terms for possible future use. I also believe that improved oversight 
and transparency is needed in how private security contractors are 
utilized and to establish clear standards regarding accountability, 
command and control, Rules of Engagement, and personnel policies. If 
confirmed, I will support the USD(P) in working with civilian and 
military officials of the Department and others who have responsibility 
for policy development and employment of private security contractors.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq?
    Answer. I think it is clear that several high-profile incidents in 
Iraq involving private security contractors harmed U.S. policy 
objectives. I understand that in December 2007 DOD and the Department 
of State agreed on consistent procedures for use of private security 
contractors in Iraq; moreover, both Departments have been transitioning 
to greater use of local nationals wherever practical. If confirmed, I 
expect to work on this issue with the USD(P) and others.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. The use of security contractors in any area of combat 
operations must be fully coordinated among all agencies that employ 
them. There must be unified procedures and strong oversight for all 
such contractors, regardless of which U.S. agency hires them. 
Commanders on the ground should have the authority to restrict or 
redirect their operations as appropriate. There must be assured legal 
accountability for the actions of all security contractors, not just 
those employed by the Defense Department.
    Question. How do you believe the ongoing operations of private 
security contractors in Iraq are likely to be affected by the new 
security agreement between the United States and Iraq?
    Answer. I understand that since January 1, 2009, U.S. Government 
private security contractors no longer have immunity from Iraqi law. 
Furthermore, they must comply with Iraqi registration and licensing 
requirements. For all contractors, the security agreement has meant 
substantially more liaison and coordination with Iraqi authorities at 
all levels.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors used 
by all Federal agencies overseas?
    Answer. Yes.
                         information operations
    Question. What in your view is the role of the Office of the USD(P) 
in managing DOD public diplomacy and information operations activities? 
If confirmed, what do you envision would be the role of the PDUSD(P) in 
these efforts?
    Answer. It is my understanding that the Department of State is the 
lead agency for public diplomacy and strategic communication, and that 
DOD works closely with the Department of State to ensure that DOD 
information activities support U.S. public diplomacy priorities and 
strategic communication efforts. Within DOD, OSD Policy plays an 
important role in the strategic communication planning process, 
necessitating close collaboration across the Department. If confirmed 
as the PDUSD(P), I would work to ensure that DOD works effectively with 
the State Department and others agencies and departments as 
appropriate, while continuing to improve the military's ability to 
support U.S. efforts in the changing information environment.
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media. The purposes of this contract 
include building up support for the Government of Iraq, the security 
forces of Iraq, and undermining Iranian influence in Iraq.
    What is your view of the appropriate roles of DOD and the 
Department of State in media campaigns to build up support for the 
government and security forces of Iraq and undermining Iranian 
influence in Iraq?
    Answer. I have not had an opportunity to become familiar with the 
details of these programs, but believe they deserve careful scrutiny. 
If confirmed, I would expect to look into these matters and look 
forward to sharing any conclusions with the committee.
    Question. What is your view on the effectiveness of information 
operations conducted by the United States through the Iraqi media?
    Answer. See previous answer.
    Question. Do you see a risk that a DOD media campaign designed to 
build up support for the government and security forces of Iraq could 
result in the inappropriate dissemination of propaganda inside the 
United States through the internet and other media that cross 
international boundaries?
    Answer. See previous answer.
    Question. A spokesman for the Iraqi Government has been quoted as 
saying that any future DOD information operations in the Iraqi media 
should be a joint effort with the Iraqi Government. According to an 
article in the Washington Post, the spokesman stated: ``We don't have a 
hand in all the propaganda that is being done now. It could be done 
much better when Iraqis have a word and Iraqis can advise.''
    Do you believe that DOD information operations through the Iraqi 
media should be conducted jointly with the Iraqis?
    Answer. See previous answer.
    Question. Under what circumstances do you believe that it is 
appropriate for the DOD to conduct information operations in a 
sovereign country without the knowledge and support of the host 
country?
    Answer. See previous answer.
                       detainee treatment policy
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    In your view, is this prohibition in the best interest of the 
United States? Why or why not?
    Answer. Yes, I believe that the prohibition on cruel, inhuman, or 
degrading treatment or punishment is in America's best strategic 
interest and consistent with our values. For decades during the Cold 
War with the Soviet Union and during long wars in a variety of theatres 
in the last century, America's image as a just and honorable global 
leader was retained in large part because of how we treated our 
adversaries and not simply our friends. Holding true to the values that 
lay at America's foundation is critical to ensuring that America's men 
and women in uniform enjoy the moral high ground when we ask them to go 
into harm's way. Perhaps more so in this century than during the last, 
American influence will stem from the power of our example and not 
simply the example of our power. If we are to defeat violent extremism, 
we must hold true to the ideals that made this country great, and 
continue to inspire the growth of freedom and tolerance around the 
world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. I understand that there are potential ambiguities in the 
application of these principles to specific cases, but have not 
received enough information to form a proper opinion on this question. 
If confirmed, I would expect to work with the DOD General Counsel on 
this issue.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. Yes. However, I am not a lawyer, and if confirmed, I would 
consult with the DOD General Counsel regarding this issue.
    Question. The President has announced his intention to close the 
detention facility for enemy combatants at Guantanamo Bay, Cuba.
    What role, if any, would you expect to play, if confirmed, in 
reviewing the status of Guantanamo detainees and determining whether 
the United States should continue to hold such detainees?
    Answer. If confirmed as PDUSD(P) and if asked, I would provide 
policy advice to the USD(P) and the Secretary of Defense regarding the 
closure of Guantanamo Bay and the disposition of the remaining detainee 
population.
    Question. The Military Commissions Act of 2006 authorized the trial 
of ``unlawful enemy combatants'' by military commission and established 
the procedures for such trials.
    What role, if any, would you expect to play, if confirmed, in 
determining whether Guantanamo detainees should be tried for war 
crimes, and if so, in what forum?
    Answer. If confirmed, I understand that I would play no role in 
determining which specific detainees should be tried for war crimes. 
Should there be a review of options for war crimes trials, I would 
expect to play a role in advising the USD(P) and the Secretary of 
Defense on policy matters.
    Question. What role, if any, would you expect to play, if 
confirmed, in reviewing the Military Commissions Act and developing 
administration recommendations for any changes that may be needed to 
that Act?
    Answer. If confirmed, I would expect to play a role in advising the 
USD(P) and the Secretary of Defense on policy options.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. I believe the main lessons learned from the changes to 
detention operations in Iraq reflect the insight that during 
counterinsurgency and stability operations, the strategic center of 
gravity is the health and welfare of the population, and not 
necessarily the strength or disposition of insurgent groups. Protecting 
the population--including those incarcerated by U.S. or host nation 
forces--and being seen to treat the people with respect and honor, is 
perhaps the most effective force multiplier that can be generated 
during these complex operations. If confirmed as PDUSD(P), I would be 
interested in working to ensure these counterinsurgency based programs 
can be tailored and applied more broadly to our detention operations in 
Afghanistan and elsewhere.
    Question. What should be done to incorporate those lessons learned 
into DOD doctrine, procedures, and training for personnel involved in 
detention and interrogation operations?
    Answer. Like many of the hard won lessons gleaned from our ongoing 
experiences in Iraq and Afghanistan, I think civilian leaders have a 
vital role to play in ensuring that valuable innovations concerning 
detention and interrogation operations should be institutionalized in 
order to prevent a recurrence of future mistakes and oversights. If 
confirmed as PDUSD(P), I would work to ensure that these efforts 
continue in DOD schoolhouses, manuals, publications, and training, and 
that these lessons are applied in all of our detention operations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Under 
Secretary of Defense for Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Dr. James N. Miller, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 10, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    James N. Miller, Jr., of Virginia, to be Deputy Under Secretary of 
Defense for Policy, vice Christopher Ryan Henry.
                                 ______
                                 
    [The biographical sketch of Dr. James N. Miller, Jr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of Dr. James N. Miller, Jr.
    Dr. James N. Miller, Jr. is Senior Vice President and Director of 
Studies at the Center for a New American Security, where he has served 
since February 2007. Previous positions include serving as Senior Vice 
President (2003-2007) and Vice President (2000-2003) at Hicks and 
Associates, Inc.; Deputy Assistant Secretary of Defense for 
Requirements, Plans, and Counterproliferation Policy (1997-2000); 
assistant professor at Duke University (1992-1997); and senior 
professional staff member for the House Armed Services Committee (1988-
1992). He is a member of the International Institute for Strategic 
Studies and the Combating WMD Panel of DOD's Threat Reduction Advisory 
Committee. He has served as an advisor to the Defense Science Board, as 
senior associate at the Center for Strategic and International Studies, 
and as senior associate member at St. Antony's College, Oxford. In 2000 
he received the Department of Defense Medal for Outstanding Public 
Service. Dr. Miller received a B.A. degree with honors in economics 
from Stanford University, and Master's and Ph.D. degrees in public 
policy from the John F. Kennedy School of Government at Harvard 
University.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. James N. 
Miller, Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Northey Miller, Jr. (Nicknames: Jim, Jimmy).

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense for Policy.

    3. Date of nomination:
    March 10, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 15, 1959; Waterloo, IA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former Adele Marie Balk.

    7. Names and ages of children:
    Allison Northey Miller; 18.
    Zoe Adele Miller; 16.
    Colin James Miller; 14.
    Lucas Eugene Miller; 12.
    Adrienne Sara Miller; 8.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University, 1985-1988. Ph.D. in Public Policy, March 1989.
    Harvard University, 1983-1985. Masters in Public Policy, June 1985.
    Stanford University, 1981-1983. (graduate study in Statistics. No 
degree).
    Stanford University, 1977-1981. B.A. with honors in Economics, June 
1981.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Vice President and Director of Studies, Center for a New 
American Security, 1301 Pennsylvania Ave., NW, Suite #403, Washington, 
DC; February 2007-present.
    President, Adaptive Strategies, LLC, 3701 N. Harrison St., 
Arlington, VA; August 2006-present. (Sole-person company used for 
consulting).
    President, The Miller Agency, Inc., 2615 W. 4th St, Waterloo, IA; 
July 2006-present. (Assumed unpaid position upon death of father. The 
company is pending dissolution.)
    Consulting Employee, SAIC, 1710 SAIC Drive, McLean, VA; February 
2007-November 2008.
    Senior Associate, CSIS, 1800 K St., NW, Washington, DC; October 
2006-February 2007.
    Senior Vice President, Hicks and Associates, Inc., 1710 SAIC Drive, 
McLean, VA; October 2000-February 2007. (Started in 2000 as Vice 
President).
    Deputy Assistant Secretary of Defense for Requirements, Plans, and 
Counterproliferation, Department of Defense, September 1997-October 
2000.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Defense Science Board Summer Study Task Force on Challenges 
to Military Operations in Support of National Interests 
(uncompensated), 2007.
    Member, Threat Reduction Advisory Council Panel on Combating 
Weapons of Mass Destruction (uncompensated), 2006-present.
    Consultant to Assistant Secretary of Defense for Strategy and 
Requirements, Defense Department, June-September 1997.
    Consultant to Deputy to the Under Secretary of Defense for Policy, 
Defense Department, April 1994-April 1995.
    Desk Officer, Office of Information and Regulatory Affairs, Office 
of Management and Budget, June-September 1984 (summer employment).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Senior Vice President and Director of Studies, Center for a New 
American Security, 1301 Pennsylvania Ave., NW, Suite #403, Washington, 
DC.
    President, Adaptive Strategies, LLC, 3701 N. Harrison St., 
Arlington, VA. (Sole-person company used for consulting).
    President, The Miller Agency, Inc., 2615 W. 4th St, Waterloo, IA. 
(Assumed unpaid position upon death of father. The company is pending 
dissolution.)
    The following all as part of consulting done under Adaptive 
Strategies, LLC:

          Consultant, Systems Planning & Analysis, Inc., 2001 N. 
        Beauregard St, Alexandria, VA.
          Consultant, National Institute for Public Policy, 9302 Lee 
        Highway, Suite 750, Fairfax, VA.
          Consultant, Northrop Grumman Corp., 1000 Wilson Blvd. Suite 
        2300, Rosslyn, VA.
          Consultant, Booz Allen Hamilton, 8283 Greensboro Drive, 
        McLean, VA.
          Consultant, CSIS, 1800 K St., NW, Washington, DC.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, International Institute for Strategic Studies.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Barack Obama Presidential Campaign: $100 (Nov. 7, 2008).
    Barack Obama Presidential Campaign: $1,000 (Oct. 2, 2008).
    Hillary Clinton Presidential Campaign: $1,500 (Sept. 26, 2007).
    Committee for Senator Jack Reed: $1,000 (June 29, 2006).

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Member, International Institute for Strategic Studies (2007-
present).
    Department of Defense Medal for Outstanding Public Service (2000).
    Atlantic Fellow in Public Policy (1995-1996).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Iran: Assessing U.S. Strategic Options, with Christine Parthemore 
and Kurt M. Campbell (Washington, DC: Center for a New American 
Security, June 2008).
    ``Enhancing Synergies and Gaining Efficiencies: Integrating the 
`INTs' to Transform Operations and Mission Management,'' Building 
Strategic Concepts for the Intelligence Enterprise-Conference Report 
(Washington, DC: Office of the Director of National Intelligence/
Policy, Plans, and Requirements, January 2008).
    ``U.S. Strategic Capabilities for Preventing War: The Way 
Forward,'' with Robert Barker (Washington, DC: Los Alamos/Livermore 
Laboratories Conference on Strategic Weapons in the 21st Century, 
January 2008).
    ``Iraq: Response to Max Boot,'' with Shawn W. Brimley, Commentary 
(December 2007): 3.
    Phased Transition: A Responsible Way Forward and Out of Iraq, with 
Shawn W. Brimley (Washington, DC: Center for a New American Security, 
June 2007).
    ``No More Iraqs,'' American Security Project, December 6, 2007.
    ``On the Road to Ruin,'' Defense News op-ed, with TX Hammes, May 7, 
2007.
    ``Reducing Homeland Security Risks with a Balanced R&D Portfolio: 
Analytical Tasks & Supporting Methods,'' Hicks & Associates, Inc. 
report to Department of Homeland Security, January 2006.
    ``DART Review of Joint Operating Concepts and Joint Functional 
Concepts,'' Defense Adaptive Red Team Report, October 2003.
    ``Operational Net Assessment: What are the Real Challenges?'' 
Defense Adaptive Red Team Report, March 2003.
    ``Challenges in Conducting Rapid Decisive Operations,'' Defense 
Adaptive Red Team Report, February 2002.
    ``Red Teaming in Joint Forces Command's Unified Vision 01 
Experiment: A Defense Adaptive Red Team (DART) View,'' Defense Adaptive 
Red Team Report, August 2001.
    ``Talking Trash: Analytic Aids for Understanding and Improving 
Judgments in Landfill Siting Processes,'' Journal of Policy Analysis 
and Management, fall 1998, with Marie Lynn Miranda and Timothy L. 
Jacobs.
    ``Seeking Truth for Power: Integrating Policy and Political 
Analysis,'' Working Paper 95-1, Terry Sanford Institute of Public 
Policy, May 1995, with Frederick W. Mayer.
    Approaching Zero: An Evaluation of Radical Reductions in Superpower 
Nuclear Arsenals, Ph.D. dissertation, Harvard University, March 1989.
    ``Zero and Minimal NuclearWeapons,'' Chapter 1 in Fateful Visions: 
Beyond Nuclear Deterrence, edited by Graham Allison, Albert Carnesale, 
and Joseph Nye, Jr., Ballinger Press, 1988.
    ``How Study Design Affects Outcomes in Comparisons of therapy. I. 
Medical,'' Statistics in Medicine, Vol. 8, 1989, with Graham Colditz 
and Frederick Mosteller.
    ``How Study Design Affects Outcomes in Comparisons of Therapy. II. 
Surgical,'' Statistics in Medicine, Vol. 8, 1989, with Colditz and 
Mosteller.
    ``Measuring Gain in the Evaluation of Medical Technology: The 
Probability of a Better Outcome,'' International Journal of Technology 
Assessment in Health Care, Vol. 4, No. 4, 1988, with Colditz and 
Mosteller.
    ``The Effect of Study Design on Gain in Evaluations of New 
Treatments in Medicine and Surgery,'' Drug Information Journal, Vol. 
22, 1988, with Colditz and Mosteller.
    ``From Babbling to Speech: A Reassessment of the Continuity 
Issue,'' Language, Vol. 61, No. 2, 1985 (numerous coauthors).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    ``Game Changing Diplomacy with Iran,'' Panel discussion at June 11, 
2008 CNAS conference [briefing].
    ``WMD Non-Use: Have We Been Effective, Lucky, or Overly 
Concerned?'' Presentation to NDU WMD Center Symposium, May 7, 2008 
[briefing].
    ``U.S. Nuclear Weapons in the 21st Century: Aiming for the 
Midterm,'' supporting presentation to Nuclear Weapons in 21st Century 
U.S. National Security Report by a Joint Working Group of AAAS, the 
American Physical Society, and the Center for Strategic and 
International Studies, April 2008 [briefing].
    ``The U.S. Military Index: Overview of Findings,'' Summary of 
findings from a poll conducted for Foreign Policy magazine, February 
19, 2008 [briefing].
    ``U.S. Strategic Capabilities for Preventing War: The Way 
Forward,'' talk to Livermore & Los Alamos National Laboratories 
Conference on Strategic Weapons in the 21st Century, January 31, 2008 
[briefing].
    ``Interview on Iraq,'' Mother Jones, October 18, 2007.
    ``Phased Transition,'' Presentation to American Enterprise 
Institute, September 6, 2007 [transcript].
    ``Assessing the Surge in Iraq,'' Presentation to American 
Enterprise Institute, July 9, 2007 [transcript].
    ``Phased Transition: A Responsible Way Forward and Out of Iraq,'' 
presentation to CNAS Conference, June 7, 2007 [briefing].

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               James N. Miller, Jr.
    This 12th day of March, 2009.

    [The nomination of Dr. James N. Miller, Jr., was reported 
to the Senate by Chairman Levin on April 1, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 3, 2009.]
                              ----------                              

    [Prepared questions submitted to Ambassador Alexander R. 
Vershbow by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. There is now a generation of military leaders 
who are experienced with operating in a coordinated and joint, multi-
service environment. At this time, I do not see the need to change the 
provisions of this legislation.
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. See my previous answer.
                             relationships
    Question. What do you see as the relationship between the Assistant 
Secretary of Defense for International Security Affairs (ASD(ISA) and 
each of the following?
    The Secretary of Defense.
    Answer. Under the direction of the Under Secretary of Defense for 
Policy (USD(P)), the Assistant Secretary of Defense for International 
Security Affairs (ASD(ISA)) advises the Secretary of Defense on 
international security strategy and policy on issues of DOD interest 
that relate to the nations and international organizations of Europe 
(including the North Atlantic Treaty Organization), the Middle East, 
and Africa.
    Question. The Deputy Secretary of Defense.
    Answer. Under the direction of the USD(P), the ASD(ISA) advises the 
Secretary of Defense on international security strategy and policy on 
issues of DOD interest that relate to the nations and international 
organizations of Europe (including the North Atlantic Treaty 
Organization), the Middle East, and Africa.
    Question. The Under Secretary of Defense for Policy.
    Answer. The ASD(ISA) provides similar support to the USD(P) as 
described above.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. At the direction of the USD(P), the ASD(ISA) works closely 
with the Under Secretary of Defense for Intelligence and Deputy to 
achieve the Secretary's objectives and ensure that policy formulation 
and execution are well informed and supported by intelligence. The 
ASD(ISA) also provides policy input, as appropriate, to intelligence 
activities handled by the Under Secretary of Defense for Intelligence 
that relate to the nations and international organizations of Europe, 
the Middle East, and Africa.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President and the National Security Council, the Chairman 
has a unique and critical military role. At the direction of the Under 
Secretary or Principal Deputy Under Secretary of Defense for Policy, 
the ASD(ISA) works with the Chairman and Vice Chairman to provide 
support on matters that affect strategy and policy for Europe, the 
Middle East, and Africa, working to ensure that military advice is 
taken into account in an appropriate manner.
    Question. The Secretaries of the Military Departments.
    Answer. The ASD(ISA) works with the Secretaries of the Military 
Departments on a broad range of issues related to international 
security strategy and policy.
    Question. The Chiefs of Staff of the Services.
    Answer. The ASD(ISA) works with the Chiefs of Staff of the Services 
on a broad range of issues related to international security strategy 
and policy.
    Question. The combatant commanders, in particular the commanders of 
U.S. Central Command, U.S. Africa Command, U.S. European Command, and 
Supreme Allied Commander Transformation/Commander, U.S. Joint Forces 
Command.
    Answer. The ASD(ISA) works closely with the commanders of U.S. 
Central Command, U.S. Africa Command, U.S. European Command, and 
Supreme Allied Commander Transformation/Commander, U.S. Joint Forces 
Command to support the efforts of the USD(P), Secretary and Deputy 
Secretary, particularly in the areas of strategy and policy, 
contingency planning, and policy oversight of operations.
    Question. The Commanding General, Multi-National Force, Iraq.
    Answer. In coordination with the Chairman of the Joint Chiefs of 
Staff, the ASD(ISA) works closely with the Commanding General, Multi-
National Force, Iraq to provide policy oversight of strategy, plans, 
and operations in Iraq in support of the USD(P), the Secretary of 
Defense, and the President of the United States.
    Question. The Commander, International Security Assistance Force 
(ISAF) and Commander, U.S. Forces, Afghanistan.
    Answer. In coordination with the Chairman of the Joint Chiefs of 
Staff, the ASD(ISA) works closely with the Commander, ISAF and 
Commander, U.S. Forces, Afghanistan to provide policy oversight of 
strategy, plans, and operations in Afghanistan in support of the 
USD(P), the Secretary of Defense, and the President of the United 
States.
    Question. The Principal Deputy Under Secretary of Defense for 
Policy.
    Answer. The ASD(ISA) is the principal advisor to the Principal 
Deputy Under Secretary of Defense for Policy on international security 
strategy and policy relating to the countries and international 
organizations of Europe, the Middle East, and Africa.
    Question. The Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    Answer. The ASD(ISA) works with the Assistant Secretary of Defense 
for Asian and Pacific Security Affairs to provide sound policy advice 
to the Under Secretary and the Secretary on cross-cutting international 
security strategy and policy issues, such as the NATO ISAF mission in 
Afghanistan.
    Question. The Assistant Secretary of Defense for Global Strategic 
Affairs.
    Answer. The ASD(ISA) works with the Assistant Secretary of Defense 
for Global Strategic Affairs to provide sound policy advice to the 
Under Secretary and the Secretary on cross-cutting international 
security strategy and policy issues, such as arms control policy and 
countering the proliferation of weapons of mass destruction.
    Question. The Assistant Secretary of Defense for Special 
Operations/Low-Intensity Conflict and Interdependent Capabilities.
    Answer. The ASD(ISA) works with the Assistant Secretary of Defense 
for Special Operations/Low-Intensity Conflict and Interdependent 
Capabilities to provide sound policy advice to the Under Secretary and 
the Secretary on cross-cutting international security strategy and 
policy issues, such as countering violent extremism, stability 
operations, and oversight of security cooperation programs.
    Question. The Director of the Defense Security Cooperation Agency.
    Answer. The ASD(ISA) works with the Director of the Defense 
Security Cooperation Agency on implementation of security cooperation 
activities, such as Foreign Military Sales, with countries in Europe, 
the Middle East, and Africa to ensure that these activities support 
national security policy objectives and strategies.
    Question. The proposed Deputy Under Secretary for Policy 
Integration and Chief of Staff.
    Answer. Although I have not had the opportunity to review the 
responsibilities of the proposed Deputy Under Secretary for Policy 
Integration and Chief of Staff, the ASD(ISA) would work with this 
organization on cross-cutting policy issues to support the objectives 
of the Secretary of Defense and the USD(P).
    Question. The proposed Deputy Under Secretary for Policy for 
Strategy, Plans, and Forces.
    Answer. Although I have not had the opportunity to review the 
responsibilities of the proposed Deputy Under Secretary for Policy for 
Strategy, Plans, and Forces, the ASD(ISA) would work with this 
organization on cross-cutting policy issues to support the objectives 
of the Secretary of Defense and the USD(P).
                                 duties
    Question. Department of Defense Directive 5111.07 (11/7/2008) 
delineates the functions and duties of the ASD(ISA). Under this 
directive, the ASD(ISA) is the principal advisor to the USD(P) and the 
Secretary of Defense on international security strategy and policy on 
issues of DOD interest that relate to the nations and international 
organizations of Europe (including NATO and Russia), the Middle East, 
and Africa, their governments and defense establishments; and for 
oversight of security cooperation programs.
    What is your understanding of the duties and functions of the 
ASD(ISA)?
    Answer. The ASD(ISA) primary responsibility is to advise and 
support the USD(P) and the Secretary of Defense on defense policy and 
strategy for Europe, the Middle East, and Africa.
    Question. Under the proposed reorganization of the OUSD(P), what 
specific changes do you anticipate and please discuss what you believe 
to be impact these changes to your functions and duties?
    Answer. I look forward to speaking with the Secretary and the 
USD(P) further about how I could best support their efforts beyond 
those set forth in section 134(b) of title 10.
    Question. How would the proposed creation of an Assistant Secretary 
of Defense for Global Strategic Affairs impact the functions and duties 
of the ASD(ISA), particularly with regard to Russia?
    Answer. The ASD(ISA) will have to coordinate closely with the 
Assistant Secretary of Defense for Global Strategic Affairs to balance 
the regional and functional perspective in the development of 
international security strategy and policy, including the U.S. approach 
to nuclear arms reductions negotiations with Russia, and in providing 
advice to the USD(P) and the Secretary of Defense.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that my 32 years of experience in the Foreign 
Service dealing with national security issues provide me with the 
necessary background to handle the responsibilities of the ASD(ISA). 
Throughout my State Department career, I worked closely with the DOD in 
shaping and implementing U.S. policy toward the former Soviet Union and 
NATO, in contributing to U.S. efforts on nonproliferation and 
counterterrorism, and in managing a wide range of international 
conflicts and crises. Over the years, I have come to appreciate the 
importance of close civil-military coordination to the achievement of 
U.S. objectives--something that is especially important in meeting the 
new threats and challenges of the 21st century.
                   strategy and contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. I believe that civilian leadership is critical in the 
formulation of strategy and planning. Civilian defense leadership is 
particularly vital in translating broad national security policies and 
principles into the strategic goals that ultimately drive military 
planning. The Joint Staff is a critical partner in the development of 
guidance for contingency planning and provides independent military 
advice to the Secretary of Defense and the President. In addition to 
the provision of written guidance, an important civilian role is to 
review contingency plans submitted for approval by the combatant 
commanders.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy and contingency 
planning?
    Answer. As the Under Secretary of Defense for Policy, Michele 
Flournoy, has said, the United States is at a critical time in 
history--with multiple wars, enduring threats, and imminent challenges. 
Strong civilian and military partnership on the range of national 
security issues facing our Nation is vital. If confirmed, I will 
examine this issue closely and seek to ensure that civilian leadership 
has the appropriate level of oversight on the full range of strategy, 
planning, and use-of-force issues, while respecting the importance of 
receiving independent military advice from the Joint Staff and the 
combatant commanders.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy and contingency 
planning?
    Answer. I support the USD(P)'s view that the strategy and planning 
capacity in the Office of the Secretary of Defense should be 
strengthened. If confirmed, I would strive to provide the best advice 
possible to the Under Secretary of Defense in the provision of written 
policy guidance and in the review of contingency plans for Europe, the 
Middle East, and Africa.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the ASD(ISA)?
    Answer. If confirmed, my office will likely play an important role 
within the Department and the interagency process in developing policy 
for a number of key issues, including among others: responsibly ending 
the war in Iraq; ensuring that NATO develops and employs a more 
effective strategy in Afghanistan and the surrounding region; working 
to prevent WMD proliferation; combating terrorism; strengthening 
security and stability across the Middle East; strengthening America's 
alliances with key partners and allies; and shaping a more constructive 
relationship with Russia while supporting the sovereignty and 
independence of Russia's neighbors. Beyond ensuring that the Secretary 
of Defense receives the best possible policy input on these vital 
questions, another major challenge will be to strengthen the 
organizational capacity to support these efforts.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would engage closely with my counterparts 
at the Department of State and NSC to develop comprehensive and 
coordinated strategies that bring to bear all elements of national 
power to advance U.S. interests.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(ISA)?
    Answer. If confirmed, I would give priority to the major challenges 
identified by the President, the Secretary of Defense, and the USD(P) 
and to strengthening the organizational capacity of ISA to address 
them. I would also give priority to ensuring effective working 
relationships with both military and civilian counterparts through the 
Department and the interagency.
                                  iraq
    Question. The President has announced his plans for the drawdown of 
U.S. forces in Iraq and their transition to an overwatch mission, to be 
completed by the end of August 2010. The U.S.-Iraqi agreement on the 
Withdrawal of United States Forces from Iraq and the Organization of 
Their Activities During Their Temporary Presence in Iraq (the 
``security agreement'') requires that U.S. combat forces withdraw from 
cities and towns by June 2009 and that all U.S. forces withdraw from 
Iraq by the end of December 2011. Additionally, if Iraqi voters reject 
the security agreement in a referendum scheduled for July 2009, U.S. 
troops would be required to withdraw by July 2010.
    What in your view are the greatest challenges facing DOD in meeting 
these deadlines and what actions, if any, would you recommend to 
maximize the chances of meeting these requirements?
    Answer. The challenge in Iraq will be to continue the phased 
redeployment of U.S. forces while maintaining a secure environment to 
support elections, political reconciliation, and economic development. 
If confirmed, I would review DOD plans and work with colleagues across 
the Department and in other agencies to make any necessary 
recommendations to the Secretary of Defense.
    Question. What is your understanding and assessment of U.S. plans 
to support implementation of the President's drawdown plans and the 
SOFA requirements for repositioning and redeployment of U.S. forces, 
including contingency planning relating to the Iraqi referendum?
    Answer. The President's drawdown strategy reflects a careful 
consideration of events on the ground and respect for the bilateral 
agreements between the United States and Iraq. If confirmed, I look 
forward to implementing this strategy and working with the Joint Staff 
and our commanders to ensure we continue to meet our obligations under 
the security agreement and plan for contingencies, while we continue to 
support the Iraqi Government and help its security forces develop into 
a professional, non-sectarian force.
                          iraq lessons learned
    Question. What do you believe to be the major lessons learned from 
the Iraq invasion and the ongoing effort to stabilize the country?
    Answer. One of many critical lessons learned from the Iraq invasion 
and the ongoing stability operations, is that better and more 
integrated civilian-military planning is required before any military 
endeavor. It is essential for policymakers to recognize that wars in 
the 21st century require preparation and competence along the entire 
spectrum of conflict--not just military, but often times political, 
ethnic, and social. The military cannot be prepared only for high-
intensity combat. The government, as a whole, must be prepared to plan 
and execute an effort to win the peace. We have also learned that the 
appropriate force strength must be deployed to accomplish our 
objectives as well as account for a broad array of contingencies and 
the changing reality of the battlespace. Furthermore, our forces must 
plan and train with their civilian counterparts and be prepared to 
operate effectively in all phases of conflict, as well as post-conflict 
environments. The Iraq war also teaches us that the right training and 
doctrine must also be in place prior to any incursion.
                                  nato
    Question. What are the greatest challenges and opportunities that 
you foresee for NATO over the next 5 years?
    Answer. The United States continues to have an enormous stake in a 
strong, capable, and mutually supportive NATO alliance. Both the 
President and the Secretary of Defense have stressed their strong 
desire to adapt and modernize transatlantic security relationships to 
meet 21st century security challenges. Over the next 5 years, the 
primary NATO-related challenges include, first and foremost, achieving 
durable progress on Afghanistan; developing a common approach toward 
managing relations with Russia, drafting a new Strategic Concept to 
define emerging threats and required capabilities, and improving the 
prospects for unity-of-action between NATO and the European Union.
    Question. Do you envision further enlargement of NATO, beyond 
Albania and Croatia, within the next 5 years? What criteria should the 
United States apply in evaluating candidates for future NATO 
enlargement?
    Answer. The President has stated that NATO enlargement should 
continue so long as new candidates are democratic, peaceful, and 
willing to contribute to common security. NATO's door remains open to 
all European democracies that share our values and who can contribute 
to our common security. Precisely which countries and within what 
applicable timeframe NATO would undertake further enlargement are 
important questions which the administration will need to address in 
close consultation with Congress and our allies. It is important that 
each NATO aspirant be judged on its individual merits and progress in 
implementing political, economic, and military reforms. No country 
outside NATO can exercise a veto over other countries' NATO 
aspirations.
    Question. What more can the United States do to encourage NATO 
members to develop the capabilities and provide the resources necessary 
to carry out NATO missions in Afghanistan and elsewhere?
    Answer. We will continue to look to our allies to shoulder a 
significant share of the military burden in Afghanistan, Kosovo, and 
other theaters, and to allocate sufficient resources to the 
modernization of their defense capabilities. At the same time, the 
President and Secretary Gates have both stressed the need for the 
United States and NATO to invest more in non-military instruments of 
national power. Many of our NATO allies have unique civilian governance 
capabilities that can enhance the overall effort in Afghanistan; the 
European Union (EU) has developed a capability to provide police and 
police training to help in stabilizing post-conflict situations. 
Forging a shared strategic view of the emerging threat environment and 
updating NATO's Strategic Concept from both a military and civilian 
governance perspective will be critical to success in Afghanistan and 
future operations.
    Question. What are your views on the potential for the NATO-Russia 
Council to serve as a useful forum for improving security relations 
between NATO and Russia?
    Answer. The NATO-Russia Council has the potential to be a useful 
forum for developing security cooperation between NATO and Russia in 
areas of common interest, such as Afghanistan, nonproliferation, 
counterpiracy, counterterrorism, and possibly missile defense. The NRC 
also can serve as a venue for dialogue with Russia on European security 
issues, including areas where we disagree, such as Georgia.
    Question. What is your assessment of the impact of France rejoining 
the integrated military structure within NATO?
    Answer. President Obama has already underscored to French President 
Sarkozy his strong support for France's full participation in NATO's 
integrated military structure. As Vice President Biden stated in his 
speech to the Munich Security Conference in early February, ``France is 
a founding member of NATO and a major contributor to its operations. We 
would expect France's new responsibilities to reflect the significance 
of its contributions throughout NATO's history, and to strengthen the 
European role within the alliance.''
    Deeper than this, full French participation in NATO's forces 
planning processes will result in French military capabilities being 
formally and openly designated for alliance use. The alliance will also 
benefit from having well trained French officers in the integrated 
military structure and from having full French participation in NATO 
common budgets. We believe that France will play an important role in 
the alliance's development of a new Strategic Concept.
                           nato-eu relations
    Question. A potential challenge facing the United States and NATO 
in the months and years ahead is the EU implementation of its European 
Security and Defense Policy (ESDP), that is, an EU capability to 
conduct military operations in response to international crises in 
cases where ``NATO as a whole is not engaged.'' At the same time, NATO 
and EU are working alongside each other in addressing a number of 
common security challenges, including police training in Afghanistan 
and crisis management in Kosovo.
    In your view, what should be NATO's position with regard to 
European efforts to strengthen the ESDP and build military capacity 
within the EU?
    Answer. NATO and the EU have agreed to ensure that their capability 
development efforts are ``mutually reinforcing.'' In defense and 
security-related realms, I would consider NATO to be the preferred 
vehicle for cooperation between our European allies and the United 
States in responding to shared security challenges. At the same time, 
NATO has rightly reaffirmed the value of a stronger, more capable ESDP 
in dealing with crises in which NATO as a whole is not engaged, and has 
agreed to provide planning and material support in such cases, based on 
our shared security interests. I believe we have already seen the 
benefits of this approach in Bosnia, where the EU has assumed greater 
responsibility as NATO redeployed its forces elsewhere.
    Question. What steps do you believe the United States and NATO 
should take to ensure that ESDP is implemented in a way that 
strengthens the alliance?
    Answer. Over the past several years, ESDP-related activities have 
grown in number and diversity, to include the EU's current anti-piracy 
operations off the coast of Somalia. Given these trends, high priority 
must be given to promoting policy-level consultation and coordination, 
good communications, and a common operating picture between NATO, its 
allies, and partners.
    Question. What is your view of the future of NATO-EU relations in 
areas relating to security, defense, and crisis management? Should NATO 
do more to institutionalize cooperation between the two organizations?
    Answer. Both NATO and the EU have important roles to play in 
meeting future security, defense, and crisis management challenges. As 
noted above, from an alliance perspective, it is important for DOD and 
U.S. interagency partners to take a clear-eyed view of the entire range 
of current EU activities--from civilian policing, to military, border 
control, or other missions--to identify both areas of duplication and 
where closer NATO-EU coordination is required. NATO should fully use 
the valuable existing NATO-EU cooperation mechanisms, and consider 
additional mechanisms where they could help strengthen cooperation.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
humanitarian demining operations, and similar activities were used to 
achieve this goal. However, the demands of supporting wars in Iraq and 
Afghanistan have drained resources needed by combatant commands to 
sustain military engagement activities.
    Do you believe that military engagement activities contribute to 
U.S. national security? If so, what do you consider to be the main 
benefits of these activities?
    Answer. Yes. I believe military-to-military contacts contribute to 
U.S. national security in a variety of important ways and, as such, I 
support continued military-to-military engagement. Such activities can 
build capacity among partner nations to participate in coalition 
operations to counter terrorism and other transnational threats, 
potentially relieving stress on U.S. forces. They can help harmonize 
nations' views of common security challenges. Military-to-military 
activities can also help sustain investments made by other U.S. 
assistance programs. Finally, when performed effectively, military-to-
military activities should show by example how military forces can act 
effectively while respecting human rights and civilian control.
    Question. If confirmed, would you advocate for continuing or 
expanding U.S. military-to-military engagement? If not, why not? If so, 
what would you recommend to address the combatant commanders' need for 
additional resources dedicated to these activities?
    Answer. If confirmed, I will support continued U.S. military-to-
military engagement. I believe the current and emerging security 
environment will require robust engagement with the militaries of our 
partners and allies around the world, and building productive 
relationships with many states in which our past military-to-military 
engagements have been limited or absent entirely. I have not had an 
opportunity to investigate the specific resource needs of combatant 
commanders. If confirmed, I will look into the resource needs 
associated with combatant commander military-to-military engagements.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207).
    What should be our strategic objectives in building the capacities 
of partner nations?
    Answer. One of the greatest threats to international security is 
the violence that is sparked when human security needs are not met by 
governments. This creates space for terrorists, insurgents, and other 
spoilers to operate and, as the September 11 attacks demonstrated, to 
threaten the United States and its allies. The goal, therefore, is to 
close this space through efforts that strengthen bilateral 
relationships; increase U.S. access and influence; promote militaries 
that respect human rights, civilian control of the military and the 
rule of law; and build capacity for common security objectives. In 
addition to promoting regional and global security, enhanced partner 
capacity reduces the risk of future military interventions and reduces 
stress on U.S. Armed Forces.
    Question. Do these objectives differ by region, e.g. do our 
objectives within the EUCOM area of responsibility (AOR) differ from 
those in the AFRICOM AOR?
    Answer. I am not in a position to render a definitive judgment on 
this important question. I will, if confirmed, study the matter and, if 
changes are needed, provide views to Secretary Gates and the members of 
this committee. My understanding is that the basic objective of the 
1206 program is to build partner capacity to work with the United 
States or independently to address the threat of terrorism. My 
understanding is that 1207 allows DOD to transfer funding to the State 
Department with the goal of assisting State's reconstruction, security, 
or stabilization efforts. The overall objectives of these programs are 
the same around the globe. U.S. interests vary in different regions so 
I would expect that 1206 and 1207 activities would vary accordingly, 
though the core objectives are the same.
    Question. What is your understanding of the purpose of the section 
1206 global train and equip authority?
    Answer. My understanding is that section 1206 is intended to 
provide a quicker, more targeted ability to build partner capacity than 
the more traditional routes of security assistance, and is focused on 
building capacity to achieve security objectives. Under law, it has two 
discrete purposes: to build a partner's national military or maritime 
security forces' capacity either to: (1) conduct counterterrorism 
operations; or (2) conduct or support stability operations where U.S. 
forces are participating. I have not been involved in 1206 
implementation, but I understand that the program has enthusiastic 
support from embassies and COCOMs and reflects a close collaboration 
between State and DOD, which work together in a ``dual key'' process to 
approve funding allocations. If confirmed, I will assist the Secretary 
in fully assessing how well this authority is working and whether it 
meets congressional intent.
    Question. What is your assessment of the implementation of the 
global train and equip program?
    Answer. See my previous answer.
    Question. What is the relationship of the global train and equip 
authority to other security assistance authorities, such as 
counternarcotics assistance and foreign military financing?
    Answer. The Departments of State and Defense need to work together 
very closely to avoid duplication of effort among these important 
activities. The global train and equip authority fills two specific 
legal requirements: to build capacity for counterterrorism and for 
stability operations where U.S. forces are a participant. Foreign 
Military Financing serves a broader set of diplomatic and foreign 
policy objectives such as improving bilateral relations, encouraging 
behavior in the U.S. interest, increasing access and influence, and 
building capacity particularly where host-nation and U.S. interests 
align.
    Counternarcotics authorities are focused on providing DOD the 
ability to support U.S. or other Government efforts to counter the flow 
of narcotics globally. If confirmed, I will support any interagency 
assessment of potential overlaps and work to ensure that DOD programs 
are focused on supporting U.S. and other agency efforts to counter the 
flow of narcotics.
    Question. What should be done to ensure that the global train and 
equip authority does not duplicate the efforts of these other 
assistance programs?
    Answer. See my previous answer.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (section 1207)?
    Answer. Section 1207 was, as I understand it, originally designed 
to help the State Department's Coordinator for Reconstruction and 
Stabilization to become operational. It facilitates security, 
stabilization, and reconstruction missions--bringing civilian expertise 
to bear alongside or in lieu of U.S. military forces. I have not been 
involved in 1207 implementation, but I understand that the program has 
been useful in facilitating a ``3D'' (Development, Defense, Diplomacy) 
approach to security, stabilization, and reconstruction challenges. If 
confirmed, I will monitor this effort closely.
    Question. What is your assessment of how this authority has been 
utilized?
    Answer. See my previous answer.
    Question. Secretary Gates has called for an expansion of the 
Government's resources devoted to instruments of nonmilitary ``soft 
power''--civilian expertise in reconstruction, development, and 
governance.
    Do you believe that there is a need to expand the Government's 
resources devoted to the ability of civilian departments and agencies 
to engage, assist, and communicate with partner nations?
    Answer. Yes. The President and Secretary Gates have both made clear 
their strong desire to see more robust non-military instruments of 
national power. Congress has the authority to expand significantly the 
Government's ``soft-power'' resources and U.S. civilian agency 
capacity. If confirmed, I will certainly make it my priority to assist 
in this effort.
    Question. In your view, what should be the role of DOD, vis-a-vis 
other civilian departments and agencies of the Government, in the 
exercise of instruments of soft power?
    Answer. Generally, the Department's role should be to support, not 
lead, in the exercise of ``soft power.'' But DOD plays a vital role in 
helping to promote--through the full gamut of planning effort, 
exchanges, exercises, operations, and bilateral defense relationships--
the conditions that enable these instruments to be applied with maximum 
beneficial effect.
    Question. What is your view of the criticism that these security 
assistance programs have contributed to a ``militarization'' of U.S. 
foreign policy?
    Answer. In general, I believe that our national security challenges 
require that the President have a broad set of options. I have not had 
experience with the 1206 and 1207 programs. However, I understand that 
all 1206 activities are approved by both the Secretaries of Defense and 
State. Further, I understand that 1207 is intended to ensure that State 
can better carry out its reconstruction, stabilization, and security 
responsibilities. It may be that the critics do not appreciate how 
deeply State is involved in the approval and authorization of these 
activities. If confirmed, I will work with Congress to ensure that 1206 
and 1207 activities are framed and implemented appropriately, and based 
on thorough State-Defense coordination.
    Question. Do you believe that there is an independent value to 
Section 1206 and 1207 funded activities or do you believe these 
authorities and associated funding should be switched to the Department 
of State?
    Answer. I do not believe that 1206 and 1207 authorities and funding 
should be switched to the Department of State. Although I am not 
intimately familiar with these activities, I understand that the 
combatant commanders find them extremely valuable. If confirmed, I will 
be able to develop a more informed opinion on this issue.
                                 russia
    Question. What role will you play, if confirmed, in establishing 
policy with respect to the U.S.-Russia national security relationship?
    Answer. If confirmed, I will work with other members of the 
administration to advance the President's goal of building a more 
constructive relationship with Russia, while managing differences in 
areas where U.S. and Russian interests may diverge. This will involve 
exploring renewed cooperation in a wide range of priority areas, 
strategic arms control, nonproliferation, Afghanistan, and improved 
cooperation on Iran.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. As the President has stressed, it is in no one's interest 
to see our relations return to a Cold War posture. Our interests 
clearly overlap in areas such as strategic arms control, 
nonproliferation, counterterrorism, Afghanistan, and counternarcotics. 
Ultimately, I believe we should work to create the conditions that make 
clear that stable, democratic neighbors on Russia's borders are in 
Russia's own interest.
    Question. In your view what steps should DOD take to improve 
security relations with Russia? For instance would you support 
increased military-to-military relations and exchanges with Russia?
    Answer. If confirmed, I will make it a priority to assess areas 
where greater military-to-military and other exchanges with Russia 
might be beneficial. It is certainly important for U.S. security 
interests that we work to keep our lines of communication open and to 
cooperate to address key global challenges.
    Question. Would you support any joint development or other 
cooperative programs with Russia, including cooperation on, or joint 
development of, missile defense capabilities in relation to Iran?
    Answer. If confirmed, I will explore the potential for additional 
cooperation with Russia in relations to Iran. I believe it is in our 
interest to continue to explore a potential joint missile defense 
architecture with Russia to counter the emerging ballistic missile 
threat from Iran.
                                  iran
    Question. Do you believe it would be in the interest of the United 
States to engage Iran in a direct dialogue to promote regional 
stability and security?
    Answer. I support the President's view that the United States 
should be willing to engage with all nations, friend or foe, and with 
careful preparation, to pursue direct diplomacy. Furthermore, I fully 
support the President's view that we should not take any options off 
the table and that engagement is the place to start our efforts to 
prevent Iran from acquiring nuclear weapons and end its support for 
destabilizing activities and terrorism in the region.
    Question. Do you believe it would be in the interest of the United 
States to engage Iran in a direct dialogue regarding the narcotics 
problems in Afghanistan?
    Answer. This issue is being examined as part of a broader 
interagency policy reviews on Iran and Afghanistan.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program? Specifically, what actions do you believe that 
DOD ought to undertake to support diplomatic efforts to dissuade Iran 
from pursuing a nuclear weapon?
    Answer. I support the President's view that it is very important 
for us to make sure that we are using all the tools of U.S. power, 
including diplomacy, in our relationship with Iran. I fully support the 
President's view that we should be willing to talk to Iran, to express 
very clearly where our differences are, but also where there are 
potential avenues for progress. Furthermore, by working with our 
international partners and allies, and by creating more favorable 
conditions in the surrounding region, we can increase the chances of 
making useful inroads with Iran. DOD should therefore continue 
developing ongoing bilateral and multilateral cooperation with the Gulf 
Cooperation Council countries and other allies in the region, in 
support of the State Department's diplomatic initiatives.
                   african regional security concerns
    Question. What do you see as the greatest threat to U.S. national 
security interests in Africa?
    Answer. There are many national security challenges to U.S. 
interests in Africa. There is, however, a growing concern over the 
compounding effects that transnational threats--such as the 
proliferation of small arms, the trafficking in illicit goods and 
persons, pandemic diseases, violent extremism, environmental 
degradation, piracy, and narcotics trade--will have on an already 
vulnerable security framework.
    Question. How should the United States address the security 
challenges in the Niger Delta?
    Answer. If confirmed, I will continue to work closely with the 
State Department to enhance our security relationship with the 
Government of Nigeria by offering our assistance, as appropriate, in 
the areas of maritime security and military capacity building.
    Question. Is DOD the appropriate department to lead any U.S. 
Government effort in this area?
    Answer. I believe there are certain situations within the African 
context where it is appropriate for DOD to lead, usually in response to 
requests by the Department of State. There are other instances where 
DOD, while not in the lead, can and does play a significant role as an 
enabler or supporter to other U.S. Government agencies in advancing 
U.S. national security interests in Africa.
    Question. Given the increasing threat of piracy in East African 
waters, would you advocate an increased focus on maritime security 
assistance to regional governments?
    Answer. I support DOD's efforts to work with the interagency to 
build the maritime security capacity of our African partners. 
Increasing African maritime capacity addresses not only the threat of 
piracy, but also other enduring security concerns, such as illegal 
fishing in territorial waters, smuggling of arms and drugs, and 
trafficking of people.
    Question. If not, what do you believe to be the most effective 
method for the United States to combat the threat of piracy?
    Answer. I support DOD's efforts to work with the interagency to 
build the maritime security capacity of our African partners, and to 
encourage our allies in Europe and Asia to contribute to counter-piracy 
efforts. Increasing African maritime capacity addresses not only the 
threat of piracy, but also other enduring security concerns, such as 
illegal fishing in territorial waters, smuggling of arms and drugs, and 
trafficking of people.
    Question. What is your understanding of planning to expand naval 
cooperation or offer new foreign military sales to improve the naval 
capabilities of U.S. partners in the region?
    Answer. The United States already cooperates with multiple 
international partners to address piracy off the coast of Somalia. DOD 
established Combined Task Force 151, and international participants 
include Turkey, the U.K., and Denmark. DOD is supportive of other 
interested partners joining this task force. In addition, DOD 
coordinates with other nations undertaking counterpiracy operations in 
the region, including Russia, China, Malaysia, India, Saudi Arabia, 
South Korea, and the European Union. Regarding a requirement for 
foreign military sales in the region, if confirmed, I will work closely 
with the Department of State to assess the naval capabilities of 
partners in the area and possible requirements for foreign military 
sales in the region.
                          u.s. africa command
    Question. The creation of AFRICOM has raised questions about the 
role of DOD in U.S. development efforts in Africa.
    What do you see as the role of AFRICOM in U.S. policy towards 
Africa and in development and humanitarian engagement?
    Answer. The Department of State and USAID lead U.S. foreign policy 
and development engagements abroad, to include Africa. President Obama 
has argued that AFRICOM should promote a more united and coordinated 
engagement plan for Africa. Ideally, AFRICOM's supporting role should 
be to promote national security objectives by working with African 
states, regional organizations, and the African Union to enhance 
stability and security in the region. In particular, AFRICOM should 
continue forging closer U.S. military-to-military relations with states 
on the African continent. If confirmed, I will continue the close 
working relationship with State, USAID, other agencies and Congress to 
ensure that AFRICOM's roles and missions assist in advancing U.S. 
foreign policy and national security objectives.
    Question. What impact, if any, might AFRICOM's lack of standing 
forces have on the command's counterterrorism activities or on its 
ability to maintain the level of security cooperation activities 
conducted with Special Operations personnel from U.S. Central and 
European Commands?
    Answer. The Global Force Management (GFM) process allows AFRICOM, 
like all the other geographic combatant commands, to request forces as 
necessary to accomplish missions tasked by the Secretary of Defense. 
These requests are reviewed and approved by the Secretary of Defense, 
allowing a dynamic balancing of military force application between 
emerging requirements and ongoing sustained operations. If confirmed, I 
will work closely with the Joint Staff in developing recommendations 
for the Secretary on allocation of forces to the regional combatant 
commanders.
                                 libya
    Question. In his testimony before the Senate Armed Services 
Committee in March 2009, Commander U.S. Africa Command discussed 
AFRICOM's intent to expand engagement with the Libyans via military 
education exchanges and foreign military sales. Libyan leader Colonel 
Muamar Gaddafi has stated on more than one occasion that he is opposed 
to that command and has suggested it is a version of American 
colonialism. A recent New York Times article also suggested that the 
Libyans feel snubbed by the United States following their 2005 decision 
to give up their WMD program.
    How do you see the U.S.-Libyan relationship moving forward on 
military-to-military engagement?
    Answer. Speaking only about the defense part of the bilateral 
relationship, I understand that defense cooperation with Libya is 
continuing to develop in a positive direction. Our objective is to work 
with Libya to enable it to make a positive contribution to regional and 
continental security. The United States and Libya are discussing areas 
of cooperation that would be in our mutual security interest, such as 
border and coastal security.
    Question. In light of Gaddafi's reported concerns about 
establishment of AFRICOM, do you believe these issues can be overcome?
    Answer. Yes, it is my understanding that those issues have already 
been overcome. General Ward recently visited Tripoli and was well 
received. This outreach provides a foundation on which to build and 
continue to develop our defense relations with Libya in a positive way.
    Question. What has been the impact of the recent agreement between 
the United States and Libya to establish a fund for settlement of 
outstanding claims related to terrorist acts committed by Libya?
    Answer. I would defer to the Department of State on this question, 
as they led the U.S. side in negotiating this settlement with Libya. 
However, from DOD's perspective, the settlement opened up the 
relationship to the possibility of normalization.
                                 darfur
    Question. The U.N. has pledged to send approximately 26,000 
peacekeepers to Darfur, but has sent less than half that number and has 
not provided them with the helicopters, vehicles, and other tools to 
fulfill their mission.
    What do you believe is the appropriate role of the United States 
and, in particular, DOD, in assisting with the deployment and mobility 
of this peacekeeping mission?
    Answer. I agree with President Obama's statements about the need to 
bring pressure to bear on Sudanese authorities in Khartoum to halt the 
genocide in Darfur. The U.N. has two major peacekeeping missions in 
Sudan that seek to create a secure environment conducive to a political 
settlement of the cultural, ethnic, and religious differences that 
divide Sudan's periphery from the center. I understand that the 
Departments of State and Defense have supported the deployment of 
African contingents to the U.N. Darfur mission by providing personnel, 
training, equipment, logistical expertise, deployment assistance, and, 
when required, airlift. If confirmed, I will look closely at what 
additional support DOD could reasonably provide in this area if so 
directed by the President.
                      united nations peacekeeping
    Question. DOD has provided logistics, communications, and 
headquarters staff to a variety of U.N. peacekeeping missions over the 
past several years.
    In your view, what support, if any, should DOD provide to U.N. 
peacekeeping missions?
    Answer. From Haiti to Liberia, Lebanon and other venues, the United 
States has important stakes in the success of U.N. peacekeeping 
operations. In addition to logistics, communications, and headquarters 
staff-related assistance, the issue of DOD help for U.N. field missions 
should be studied closely and in close consultation with other U.N. 
member states.
    Question. In your view, should DOD provide U.S. military personnel 
to U.N. peacekeeping missions?
    Answer. The United States can make important contributions to U.N. 
peacekeeping missions, though these should come in areas where we truly 
have an ``edge,'' such as leveraging of technology, organizational and 
logistics capabilities, et cetera. Given their high level of training, 
our military personnel can also play useful roles as military observers 
in areas where the U.N. is preserving stability in a relatively secure 
environment. I would be extremely cautious about assigning U.S. 
military personnel to traditional U.N. peacekeeping missions, though I 
would want the President to have the option of doing so if he deemed it 
appropriate.
    Question. The United States along with its partners in the G-8 
sponsored an initiative to train 75,000 peacekeepers by 2010. This 
program, known as the Global Peace Operations Initiative (GPOI), is run 
by the Department of State. DOD has provided varying degrees of support 
since the program's inception.
    In your view, what is the appropriate role of DOD in this program 
and, more generally, in the training of peacekeepers?
    Answer. DOD plays an important role in bringing its expertise to 
bear in the training and equipping of peacekeeping units. DOD 
collaboration with State is important to successfully identifying and 
vetting viable partners, analyzing indigenous capacities, developing 
sustainable train-the-trainer programs, and promoting self-sufficiency 
in this critical area so that more nations can effectively contribute 
to the increasing demand for skilled peacekeepers around the world.
    Question. If confirmed, would you support or oppose an extension of 
the GPOI program and its mandate beyond its scheduled end date in 2010? 
Please explain.
    Answer. President Obama has stated his support for continued 
funding for GPOI. In general, I believe the United States has a strong 
interest in effective training that expands the pool of available 
peacekeepers worldwide, including those with which we may need to 
operate jointly. If confirmed, my intent would be to work closely with 
State Department colleagues as well as Members of Congress to ensure 
GPOI supports the President's objectives in this area.
                                 piracy
    Question. Piracy off the coast of Somalia grew at a significant 
rate in 2008. Dozens of successful acts of piracy have meant the 
capture of hundreds of hostages, valuable cargoes including arms, oil, 
and humanitarian aid, and have resulted in the payment of millions of 
dollars in ransoms. By all accounts, Somalia is unable to manage this 
problem, and the U.N. has adopted resolutions designed to generate 
international cooperation in addressing the scourge of piracy in that 
part of the world. Recently, the United States reached an agreement 
with Kenya regarding the detention and prosecution of suspected 
pirates.
    What do you believe should be the role of the United States in 
general, and DOD in particular, in stemming the tide of piracy in the 
waters off the coast of Somalia?
    Answer. The United States supports international efforts to address 
piracy off the coast of Somalia. To this end, DOD works closely with 
the interagency to support a multi-faceted approach to this problem. 
The interagency Counter-Piracy Action Plan (CPAP) outlines a strategic 
approach to address piracy off the coast of Somalia, including self-
protection measures by commercial shippers, and international 
cooperation with authorities inside Somalia to address the land-based 
origins of the problem. In support of international efforts, DOD 
established Combined Task Force 151, a multinational task force that is 
executing counter-piracy operations off the Horn of Africa.
    Question. Given the lack of an effective government or functioning 
court system in Somalia, what should be done to assist Somalia in 
strengthening its own operational capacity to fight piracy and bring to 
justice those involved in piracy?
    Answer. Long-term instability in Somalia has enabled piracy to 
flourish in the region. An effective solution to piracy will require 
Somalis to lead efforts to create governance mechanisms that are able 
to effectively secure their territory, while also providing economic 
opportunities to their people that reduce the appeal of piracy.
    Question. Are the international legal processes in place sufficient 
to ensure full and fair prosecutions of suspected pirates?
    Answer. I am not in a position to render a definitive judgment on 
this issue. If confirmed, I will work with the interagency to review 
this issue and, as needed, provide recommendations to the USD(P) on 
this issue and how DOD can and should support efforts regarding the 
legal framework for prosecution of suspected pirates.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. Like the President and the Secretary of Defense, I strongly 
support U.S. accession to the Law of the Sea Convention. The United 
States should be at the forefront of promoting the rule of law, 
including in the world's oceans. By becoming a party to the Convention, 
we would send a clear signal to all nations that we are committed to 
advancing the rule of law at sea. Additionally by joining the 
Convention, we would provide the firmest possible legal foundation for 
the navigational rights and freedoms needed to project power, reassure 
friends and deter adversaries, respond to crises, sustain combat forces 
in the field, and secure sea and air lines of communication that 
underpin international trade and our own economic prosperity.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. Joining the Convention will give the United States a seat 
at the table when rights vital to our national interests are debated 
and interpreted, including the maritime mobility of our armed forces 
worldwide. The navigation and overflight rights and high seas freedoms 
codified in the Convention are essential for the global mobility of our 
Armed Forces and the sustainment of our combat forces overseas. America 
has more to gain from legal certainty and public order in the world's 
oceans than any other country. More than 150 nations are parties to the 
Convention. By becoming a party, the United States will be better 
positioned to work with foreign air forces, navies, and coast guards to 
cooperatively address the full spectrum of 21st century security 
challenges.
             bilateral defense trade cooperation agreements
    Question. Defense trade cooperation agreements between the U.S. and 
the U.K. and between the U.S. and Australia are currently pending 
before the Senate Foreign Relations Committee.
    What are your views on the U.S.-U.K. and U.S.-Australia defense 
trade cooperation agreements?
    Answer. I have not had the opportunity to review these agreements 
in detail but support the general objectives of the U.S.-U.K. and U.S.-
Australia Defense Trade Cooperation Treaties. I believe that robust 
interoperability with two key allies along with the enhanced protection 
of our defense articles pursuant to the treaties will further our 
national security interests. If confirmed, I will support the USD(P) 
and the State Department in working with the Senate to resolve any 
issues related to ratification.
    Question. In your view, are these agreements in the national 
security interest of the United States?
    Answer. I have not had the opportunity to review these agreements 
in detail, but the intent of the treaties to increase defense trade and 
interoperability with two key trusted allies is sound and in the 
interest of our national security. If confirmed, I will review the 
treaties in detail and support the USD(P) and the Department of State 
in working with the Senate to address any issues.
    Question. What do you consider to be the main advantages and 
disadvantages of these defense trade cooperation arrangements?
    Answer. I am told that, if ratified, these two treaties will allow, 
under defined conditions, the transfer of defense articles without 
prior written authorization. By reducing trade barriers to the exchange 
of defense hardware, technical data, and services, we will strengthen 
U.S.-Australia and U.S.-U.K. defense cooperation, increase 
interoperability, and lend greater support to current and future 
coalition operations. There will also be substantial benefit to the 
respective three industrial bases. The treaties promise to enhance our 
bilateral government and industry research, development, and production 
efforts by providing a flexible, agile export control environment that 
will expedite the delivery of new technologies to our warfighters. 
Moreover, the treaties will increase competition in the defense 
marketplace by creating an approved community of companies in all three 
nations, which will result in improved quality and reduced costs in the 
defense equipment we provide to the men and women of our Armed Forces.
                     u.s. military basing in europe
    Question. Current DOD plans provide for the drawdown of U.S. Army 
forces in Europe to 32,000 U.S. soldiers by no later than 2013. 
However, General Craddock, Commander, U.S. European Command, is 
reviewing a recommendation that the two brigades currently scheduled 
for redeployment back to the United States should remain in Europe, 
keeping U.S. forces based in Europe at a force of around 42,000 beyond 
2013.
    Do you support maintaining a larger U.S. force presence in Europe 
than the 32,000-force level planned for 2013? Why or why not?
    Answer. I understand that the Department intends to review posture 
issues such as European basing requirements as part of the upcoming 
Quadrennial Defense Review (QDR). If confirmed, I look forward to 
actively participating in the QDR process.
                              arms control
    Question. What role will you have, if confirmed, in future arms 
control negotiations, such as a follow on to the Strategic Arms 
Reduction Treaty?
    Answer. If confirmed, I would provide advice to the USD(P) on arms 
control policy with respect to Europe, the Middle East, and Africa and 
would perform any further duties as assigned by the Under Secretary. It 
is my understanding, however, that the Assistant Secretary of Defense 
for Global Strategic Affairs will have lead responsibility within DOD 
for talks on a follow-on to the Strategic Arms Reduction Treaty.
                      private security contractors
    Question. The Special Inspector General for Iraq Reconstruction 
reported that Federal agencies including DOD have spent more than $5 
billion for private security contractors in Iraq since 2003. Over this 
period, there have been numerous reports of abuses by private security 
contractors, including allegations of contractors shooting recklessly 
at civilians as they have driven down the streets of Baghdad and other 
Iraqi cities.
    Do you believe DOD and other Federal agencies should rely upon 
contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. I understand the concerns of Congress on this issue and 
believe that a comprehensive review of the role of military contractors 
on the battlefield is needed in order to set the terms for how they 
might be utilized in the future. I also agree with President Obama's 
views on the need to improve oversight and transparency in how private 
security contractors are utilized and to establish clear standards 
regarding accountability, command and control, rules of engagement, and 
personnel policies. Currently, there are a number of international 
efforts supported by the Department to establish open, transparent, and 
enforceable standards of conduct and good practices, such as the 
Montreux Document, that will enhance our ability to ensure that 
contractors perform in support of U.S. policies. If confirmed, I will 
work with civilian and military officials of the Department and others 
who have primary responsibility for policy development and employment 
of private security contractors.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq?
    Answer. I do believe that several high-profile incidents in Iraq 
involving private security contractors have harmed U.S. policy 
objectives in Iraq. In December 2007 DOD and the Department of State 
agreed on consistent procedures for use of private security contractors 
in Iraq; moreover, both Departments have been transitioning to greater 
use of local nationals wherever practical. If confirmed, I expect to 
work on this issue and will keep Congress informed.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. The use of security contractors in any area of combat 
operations must be fully coordinated among all agencies that employ 
them. There must be unified procedures and strong oversight for all 
such contractors, regardless of which U.S. agency hires them. 
Commanders on the ground should have the authority to restrict or 
redirect their operations as appropriate. I believe there must be 
assured legal accountability for the actions of all security 
contractors, not just those employed by the Defense Department.
    Question. How do you believe the ongoing operations of private 
security contractors in Iraq are likely to be affected by the new SOFA 
between the United States and Iraq?
    Answer. It is my understanding that since January 1, 2009, U.S. 
Government private security contractors in Iraq no longer have immunity 
from host nation law. Furthermore, they must comply with host nation 
registration and licensing requirements. For all contractors, the SOFA 
has meant substantially more liaison and coordination with Iraqi 
authorities at all levels.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. Yes.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice to employees of private security 
contractors operating in an area of combat operations?
    Answer. If confirmed, I would consult with the General Counsel on 
this question.
            contractor performance of information operations
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media. The purposes of this contract 
include building up support for the Government of Iraq and the security 
forces of Iraq, and undermining Iranian influence in Iraq.
    What is your view of the appropriate roles, if any, of DOD and the 
Department of State in media campaigns to build up support for the 
government and security forces of Iraq and undermining Iranian 
influence in Iraq?
    Answer. I have not had an opportunity to become familiar with the 
details of these programs, but believe they deserve careful scrutiny. 
If confirmed, I would expect to look into these matters and discuss 
them with members of the committee.
    Question. What is your view on the effectiveness of information 
operations conducted by the United States through the Iraqi media?
    Answer. See previous answer.
    Question. Do you believe that it is appropriate for the United 
States to pay for media campaigns to build up support for the 
government and the security forces of Iraq at a time when the Iraqi 
Government has a surplus of tens of billions of dollars?
    Answer. See previous answer.
    Question. Do you see a risk that a DOD media campaign designed to 
build up support for the government and security forces of Iraq could 
result in the inappropriate dissemination of propaganda inside the 
United States through the internet and other media that cross 
international boundaries?
    Answer. See previous answer.
    Question. A spokesman for the Iraqi Government has been quoted as 
saying that any future DOD information operations in the Iraqi media 
should be a joint effort with the Iraqi Government. According to an 
article in the Washington Post, the spokesman stated: ``We don't have a 
hand in all the propaganda that is being done now. It could be done 
much better when Iraqis have a word and Iraqis can advise.''
    Do you believe that DOD information operations through the Iraqi 
media should be conducted jointly with the Iraqis?
    Answer. See previous answer.
    Question. Under what circumstances do you believe it is appropriate 
for DOD to conduct information operations in a sovereign country 
without the knowledge and support of the host country?
    Answer. See previous answer.
                       detainee treatment policy
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. I believe the prohibition on cruel, inhuman, or degrading 
treatment or punishment is clearly in America's best strategic interest 
and consistent with our values. During the long history of the Cold 
War, when America's way of life was challenged by a powerful competing 
ideology, we were ultimately successful, in part, because we held true 
to the best ideals and principles that sustained America as a shining 
beacon to millions under totalitarian rule. Power in the 21st century 
will stem as much from the strength and appeal of our ideas and moral 
principles as from our military might. If we are to defeat violent 
extremism, we must hold true to those ideas that make this country 
great, and continue to inspire the growth of freedom and tolerance 
around the world.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes, I will.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. I have not had an opportunity to study the changes in 
detention operations in detail in order to assess lessons learned. If 
confirmed as ASD(ISA), I would be interested in examining changes to 
detention operations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(ISA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                                 darfur
    1. Senator Reed. Ambassador Vershbow, the Departments of State and 
Defense formed the Missing Assets Task Force to conduct a global search 
for 28 attack and transport helicopters, logistics units, and other 
assets for the operation in Darfur. As of December 2008, the task force 
was unable to obtain commitments for the helicopters. Can you please 
describe the efforts the Department of Defense (DOD) is undertaking to 
find those assets for the United Nations (U.N.) operation in Darfur?
    Ambassador Vershbow. The Government of Ethiopia has offered five 
attack helicopters which the U.N. stated will fill the attack 
helicopter needs for the United Nations/African Union Mission in Darfur 
(UNAMID) peacekeeping force. The U.N. is building facilities for these 
helicopters and working with the Governments of Sudan and Ethiopia to 
get them deployed.
    DOD continues to work with the State Department to identify other 
sources for these critical enabling assets, using U.S. Defense Attache 
Offices (DAOs) to canvas host nation counterparts and providing input 
to the State Department in developing its diplomatic engagement 
strategy. Particular areas of focus are advising the State Department 
in its efforts to secure equipment support for the second Ethiopian 
multi-role logistics unit; supporting the deployment of Nepalese 
special forces and sector Reserve companies; and ensuring equipment 
missing from infantry battalions in UNAMID is en route or will be 
shortly.

    2. Senator Reed. Ambassador Vershbow, the National Defense 
Authorization Act for Fiscal Year 2008 included a reporting requirement 
that the Secretary of Defense report on the efforts the Department is 
undertaking ``to provide training and guidance to the command of an 
international intervention force that seeks to prevent mass 
atrocities.'' Do you have that report and can you speak to the 
Department's efforts in that regard?
    Ambassador Vershbow. Section 1266(b) of the National Defense 
Authorization Act for Fiscal Year 2008 required the Secretary of 
Defense to submit a report to Congress on ``the capability of the DOD 
to provide training and guidance to the command of an international 
intervention force that seeks to prevent mass atrocities.'' This report 
is under review by senior DOD officials. We expect it will be 
transmitted to Congress within the next few months.
    DOD has no formal training program or doctrine aimed specifically 
at command of international intervention forces seeking to prevent mass 
atrocities. DOD does, however, provide training and possess doctrine 
adaptable to such forces. DOD maintains the capability to support the 
development of new doctrine for the training and guidance of an 
international intervention force if appropriately authorized and 
resourced to do so. If directed, DOD is prepared to work in cooperation 
with other Federal departments and agencies to this end.
    DOD support to the Department of State-led Global Peace Operations 
Initiative, which facilitates both the African Contingency Operations 
Training and Assistance program and the Center of Excellence for 
Stability Police Units, provides foreign peacekeepers with capabilities 
that could be useful in the prevention of mass atrocities.
    DOD doctrinal documents at both the Capstone and Operational levels 
do not address the prevention of genocide or mass atrocities 
specifically, but do highlight related issues such as stability 
operations, humanitarian relief, human rights and human rights law, the 
building of civilian capacity to preclude internal conflict, and the 
separation of combatants.
                                 ______
                                 
    [The nomination reference of Ambassador Alexander Vershbow 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 12, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Alexander Vershbow of the District of Colombia, to be an Assistant 
Secretary of Defense, vice Mary Beth Long, resigned.
                                 ______
                                 
    [The biographical sketch of Ambassador Alexander R. 
Vershbow, which was transmitted to the committee at the time 
the nomination was referred, follows:]
               Biographical Sketch of Alexander Vershbow
    Alexander Vershbow served as Ambassador to the Republic of Korea 
from October 2005 to September 2008, his final assignment in a career 
with the U.S. Foreign Service spanning 32 years. Before coming to 
Korea, Vershbow was recognized as one of the State Department's leading 
experts in East-West relations, nonproliferation and European security 
affairs. As Ambassador to Korea, he was centrally involved in the 
transformation of the Korea-U.S. defense alliance, policy for the Six-
Party Talks on North Korea, and securing Korea's participation in the 
U.S. Visa Waiver Program. In 2007 he won the State Department's Cordell 
Hull Award for Economic Achievement for his significant contributions 
to the negotiations on the Korea-U.S. Free Trade Agreement.
    From 2001 to 2005, Alexander Vershbow served as U.S. Ambassador to 
the Russian Federation. During his tenure, the Ambassador worked to 
promote U.S. Russian cooperation in the areas of counterterrorism and 
counterproliferation, and to expand the agenda to encompass new 
challenges such as HIV/AIDS. He was a consistent advocate for the 
causes of democracy, human rights and rule of law in Russia, and 
received the American Bar Association's 2004 Ambassador's Award for 
these efforts. He also promoted U.S. business interests in Russia, 
advancing American trade, exports and investment while campaigning for 
the protection of intellectual property rights.
    From 1998 to 2001, Alexander Vershbow served as the U.S. Ambassador 
to the North Atlantic Treaty Organization (NATO). As U.S. Permanent 
Representative on the North Atlantic Council, Ambassador Vershbow was 
centrally involved in transforming NATO to meet the challenges of the 
post-Cold War era, including the admission of new members and the 
development of relations with Russia, and in NATO's campaign to end the 
conflict in Kosovo. In June 2001, Secretary of State Colin L. Powell 
awarded Ambassador Vershbow the State Department's Distinguished 
Service Award for his work at NATO.
    From 1994 to 1997, Alexander Vershbow served as Special Assistant 
to the President and Senior Director for European Affairs at the 
National Security Council. During this period, he helped shape U.S. 
policy toward NATO enlargement, the conflict in Bosnia and other U.S.-
European issues. He was a principal member of the U.S. team that helped 
negotiate the Founding Act between NATO and the Russian Federation 
signed in 1997. In October 1997, former Secretary of Defense William 
Cohen presented Mr. Vershbow with the first annual Joseph J. Kruzel 
Award for his contributions to the cause of peace.
    Alexander Vershbow is a long-time student of Russian Affairs and 
international relations. He received a B.A. in Russian and East 
European Studies from Yale University (1974) and a Master's Degree in 
International Relations and Certificate of the Russian Institute from 
Columbia University (1976). Vershbow was director of the State 
Department's Office of Soviet Union Affairs during the last years of 
the USSR and participated in numerous U.S.-Soviet summits and 
ministerial meetings. In 1990, he was awarded the Anatoly Sharansky 
Freedom Award by the Union of Councils of Soviet Jews for his work in 
advancing the cause of Jewish emigration from the USSR. Earlier Foreign 
Service assignments included postings to the U.S. Embassies in Moscow 
and London and Advisor to the U.S. Delegation to the Strategic Arms 
Reductions Talks in Geneva.
    Ambassador Vershbow was born in Boston, MA. His wife, Lisa, is a 
prominent designer of contemporary jewelry.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ambassador 
Alexander R. Vershbow in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alexander Russell Vershbow.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Affairs.

    3. Date of nomination:
    March 12, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 3, 1952; Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Lisa Kaufman Vershbow (maiden name: Lisa Nan Kaufman).

    7. Names and ages of children:
    Benjamin Charles Vershbow, 29; Gregory Michael Vershbow, 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1974-1976, Columbia University, School of International Affairs, 
New York, NY - Master of International Affairs (M.I.A.) & Certificate 
of the Russian Institute.
    1970-1974, Yale University, New Haven, CT - B.A. Russian/East 
European Studies.
    1963-1970, Browne & Nichols School, Cambridge, MA - High School 
Diploma.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    U.S. Department of State - Career Member of the Foreign Service, 
1977-2008.
Assignments in last 10 years:
    10/05-09/08, U.S. Ambassador to the Republic of Korea, Seoul.
    07/01-07/05, U.S. Ambassador to the Russian Federation, Moscow.
    01/98-07/01, U.S. Ambassador to the North Atlantic Treaty 
Organization (NATO), Brussels, Belgium.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
Earlier Assignments in the Foreign Service (only other Government 
        experience):
    06/94-09/97, Special Assistant to the President and Senior Director 
for European Affairs, National Security Council, Washington, DC.
    06/93-06/94, Principal Deputy Assistant Secretary of State for 
European and Canadian Affairs, U.S. Department of State, Washington, 
DC.
    02/93-06/93, Acting U.S. Permanent Representative on the North 
Atlantic Council, Charge d'affaires, U.S. Mission to NATO, Brussels, 
Belgium.
    08/91-02/93, Deputy U.S. Permanent Representative and Deputy Chief 
of Mission, U.S. Mission to NATO, Brussels, Belgium.
    08/88-07/91, Director, Office of Soviet Union Affairs, U.S. 
Department of State, Washington, DC.
    07/85-07/88, Deputy Counselor for Political Affairs, U.S. Embassy, 
London, U.K.
    08/83-07/85, Deputy Director for Multilateral and Security Affairs, 
Office of Soviet Union Affairs, U.S. Department of State, Washington, 
DC. Part-time Advisor to the U.S. Delegation to Strategic Arms 
Reductions Talks (START), Geneva, Switzerland.
    07/81-07/83, Multilateral and Security Affairs Officer, Office of 
Soviet Union Affairs, U.S. Department of State, Washington, DC.
    06/80-07/81, Political Officer, U.S. Embassy, Moscow, USSR.
    06/69-06/80, Consular Officer, U.S. Embassy, Moscow, USSR.
    05/77-06/79, Politico-Military Affairs Officer, Office of 
International Security Policy, Bureau of Politico-Military Affairs, 
U.S. Department of State, Washington, DC. Part-time Advisor to the U.S. 
Delegation to Strategic Arms Limitation Talks (SALT II), Geneva, 
Switzerland.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Foreign Service Association (AFSA), 1977-present.
    Phi Beta Kappa, 1974-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2008: Obama/Biden Campaign, $500.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    2008, Cordell Hull Award for Economic Achievement by Senior 
Officers, U.S. Department of State - for work on Korea-U.S. trade 
negotiations.
    2008, Diplomatic Order of Merit - Award presented by the President 
of the Republic of Korea for contributions to U.S.-Korea relations.
    2008, Agency Seal Medal, Central Intelligence Agency.
    2007, Honorary Doctor of Public Affairs, University of Maryland, 
University College.
    2005, Honorary Doctor of Philosophy, Nizhniy Novgorod State 
Linguistic University, Russia.
    2005, Gold Record, Recording Industry Association of America (RIAA) 
- for efforts to combat CD/DVD piracy in Russia.
    2004, Ambassador's Award, American Bar Association's Central 
European and Eurasian Law Initiative (ABA-CEELI) - for efforts to 
promote democracy and the rule of law in Russia.
    2004, Friend of the American Chamber of Commerce, Moscow, Russia.
    2002, Commander of the Order of Grand Duke Gediminas of the 
Republic of Lithuania - for work in support of the enlargement of NATO.
    2001, Distinguished Service Award, U.S. Department of State - for 
work as Ambassador to NATO on Kosovo and transformation of NATO.
    2001, Commander (Commendatore) of the Order of Merit of the 
President of the Republic of Italy - for work as U.S. Ambassador to 
NATO.
    2000, Group Superior Honor Award, U.S. Department of State - for 
work on NATO's 50th-anniversary summit in 1999.
    1997, Joseph J. Kruzel Award, U.S. Department of Defense - award in 
memory of U.S. official killed in Bosnia 1995, for work for peace in 
the Balkans.
    1990, Anatoly Sharansky Freedom Award, Union of Councils of Soviet 
Jews for work to overcome obstacles to Jewish emigration from the USSR.
    1997, Various Presidential Senior Foreign Service Awards, State 
Department.
    2008, Meritorious Service, Superior Honor and Senior Performance 
Awards.
    1980s, Term Member of the Council on Foreign Relations.
    1975-1976, Fellowship of School of International Affairs, Columbia 
University.
    1974, White History Prize, Yale University.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Chapter in Ambassadors' Memoir U.S.-Korea Relations Through the 
Eyes of the Ambassadors, Korea Economic Institute, 2009.
    ``Offering a Broader Vision for the Alliance,'' Interview with the 
Korea Herald (April 15, 2008).
    ``FTA: It's Time to Make it Happen,'' Joongang Daily, Feb. 13, 
2007. (Op-Ed on Korea-U.S. Free Trade Agreement.)
    ``KORUS FTA Launch,'' Washington Times, June 18, 2006. (Joint Op-Ed 
with Korean Ambassador Lee Tae-sik on the Korea-U.S. Free Trade 
Agreement.)
    ``United States-Republic of Korea Relations: A Confident and Strong 
Alliance,'' The Ambassadors' Review, Council of American Ambassadors, 
Spring 2006.
    ``Working Together to Create a Viable FTA,'' Korea Herald, Feb, 
2006. (Op-Ed on Korea-U.S. Free Trade Agreement.)
    ``The U.S. Remains Committed to the Six-Party Talks Despite Serious 
Concerns About North Korea's Illicit Activities,'' Hankyoreh Shinmun, 
Dec. 26, 2005.
    ``A Time for Leadership in Global Trade and Development,'' Hankook 
Kyungje Shinmun (Korea Economic Daily), Dec. 19, 2005. (Op-Ed on the 
WTO.)
    ``United States-Russia Relations: The View After Bratislava'' (The 
Ambassadors Review, Spring 2005).
    ``The World Needs a Strong Russia'' (The Moscow Times, April 11, 
2005).
    ``On Intellectual Property Rights'' (Vedomosti, February 16, 2005).
    ``History Does Not Honor Bystanders'' (on the anniversary of the 
liberation of Auschwitz) (Kommersant, January 26, 2005).
    ``The End of the Road for Human Traffickers in Russia'' (Vremya 
Novostey, December 29, 2004).
    ``Turning Our Backs on AIDS Will Not Make It Go Away'' (Izvestia, 
December 1, 2004).
    ``The United States and Russia Together in the Fight Against 
Terrorism'' (Izvestia, September 7, 2004).
    ``America Stands with Russia in the Waron Global Terrorism'' 
(Izvestia, September 6, 2004).
    ``A Shared Legacy of Environmental Cooperation'' (Nezavismaya 
Gazeta, April 21, 2004).
    ``Human Rights, Civil Society and Freedom of the Press'' (Izvestia, 
December 10, 2003).
    ``World AIDS Day: The U.S.-Russian Partnership in the Fight Against 
HIV/AIDS'' (Izvestia, December 1, 2003).
    ``Piracy Against Progress'' (The Moscow Times and Vedomosti, 
November 25, 2003).
    ``The Partnerships for Prosperity and Security Tradeshow: Building 
U.S.-Russian Partnerships in Science and Technology'' (Rossiyskaya 
Gazeta, November 5, 2003).
    ``Taking on the Problem of Trafficking in Persons'' (Izvestia, 
October 15, 2003).
    ``Allies Against Terrorism'' (Nezavismaya Gazeta, September 11, 
2003).
    ``Toward a Free, Prosperous Iraq: Security, Political, Economic 
Efforts On Track'' (Izvestia, July 4, 2003).
    ``Agricultural Biotechnology is a Safe Way of Meeting the World's 
Food Needs'' (Kommersant, June 30, 2003).
    ``U.S.-Russian Relations: From St. Petersburg to Camp David'' 
(Nezavisimaya Gazeta, June 23, 2003).
    ``Getting U.S.-Russian Relations Back on Track'' (Izvestia, May 30, 
2003).
    ``The Iraqis Are Ready For Democracy'' (Izvestia, April 27, 2003).
    ``This is Not A War for Oil'' (Izvestia, April 2, 2003).
    ``Resolutions Should Be More Than Wishes'' (Nezavisimaya Gazeta, 
March 21, 2003).
    ``The Iraq Crisis: Asking the Right Question'' (Nezavisimaya 
Gazeta, March 13, 2003).
    ``Resolute About War'' (The Moscow Times, March 20, 2003).
    ``Disarming Iraq: Debunking the Myth of American Unilateralism'' 
(Kommersant, March 3, 2003).
    ``Iraq's Failure to Disarm'' (Izvestia, February 13, 2003).
    ``Iraq is Not Living Up to Its U.N. Commitments'' (Rossiyskaya 
Gazeta, February 4, 2003).
    ``NATO-Russia Relations: Looking Ahead'' - in Russian (Contemporary 
Europe, No. 1, January-March 2003) (translation of speech delivered in 
December 2002).
    ``Iraq's Weapons of Mass Destruction: Let's Not Forget the Root of 
the Problem'' (Kommersant - September 23, 2002).
    ``September 11, 2001 - One Year After'' (The Moscow Times and 
Izvestia, September 11, 2002).
    ``Russia, U.S.A., and 21st Century Challenges'' (Obshchaya Tetrad' 
- Journal of the Moscow School of Political Sciences, #4 (23), 2002).
    ``The New United States-Russian Relationship'' (The Ambassadors' 
Review - Spring 2002).
    ``How Not to Do Business in Russia'' (Kommersant, May 21, 2002).
    ``NATO and Russia - A New Approach to Relations in the 21st 
Century'' (Nezavisimaya Gazeta, March 4, 2002).
    ``Transforming NATO-Russia Relations in NATO in the 21st Century - 
The Road Ahead,'' U.S. Foreign Policy Agenda, an Electronic Journal of 
the U.S. Department of State, Vol. 7, No. 1, March 2002.
    ``The New U.S.-Russia Relationship and the Role of an Independent 
Press'' (Kommersant - December 24, 2001).
    ``Almost Real Allies'' (Nezavisimaya Gazeta, December 7, 2001).
    ``The New U.S.-Russian Economic Relationship'' (Kommersant - 
November 26, 2001).
    ``The Beginning of a U.S.-Russia Alliance?'' (The Moscow Times - 
November 23, 2001).
    ``It's Time to Join Ranks Against International Terrorism,'' 
(Izvestia - September 29, 2001).
    ``NATO and the New Europe - U.S. Leadership is Still Essential,'' 
Article in European Affairs journal, Winter 2000.
    ``An Alliance of Shared Values and Common Interests,'' Article in 
NATO 50 Years On: Enlargement and Renewal, London, Atalink Ltd., 1998.
    Letter to the Editor of The New York Times, December 8, 1998.
    ``The Case for NATO Expansion,'' Letter to the Editor of the 
Washington Post, April 7, 1998.
    ``NATO's Role in Bosnia: Past, Present and Future,'' Article in 
``U.S. Foreign Policy Agenda,'' Electronic Journal of the USIA, Vol. 3, 
No. 2, April 1998.
    ``Toward an Undivided Europe,'' Op-Ed article in The Christian 
Science Monitor, July 31, 1996 - co-author with Daniel Fried and Steven 
Pifer.
    ``U.S. Offers Moscow an Alliance with an Expanding NATO,'' Op-Ed 
Article in The Christian Science Monitor, October 4, 1995 - co-author 
with Daniel Fried and Coit Blacker.
    ``The Dynamics of NewWeapons Systems: Arms Race Without End?'' 
Published in German in Rissener Jahrbuch 1983/1984, Haus Rissen, 
Hamburg, FRG.
    Introduction to Controlling Future Arms Trade, The 1980s project, 
Council on Foreign Relations, NY, McGraw Hill, 1977 (co-author with 
David Gompert).
    ``The Cruise Missile: The End of Arms Control?'' Article in Foreign 
Affairs, Council on Foreign Relations, NY, October 1976.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Examples of speeches as Ambassador to Russia and Korea provided 
separately.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Alexander R. Vershbow.
    This 13th day of March, 2009.

    [The nomination of Ambassador Alexander R. Vershbow was 
reported to the Senate by Chairman Levin on April 1, 2009, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on April 3, 2009.]


 
  NOMINATIONS OF RAYMOND E. MABUS, JR., TO BE SECRETARY OF THE NAVY; 
ROBERT O. WORK TO BE UNDER SECRETARY OF THE NAVY; ELIZABETH L. KING TO 
 BE ASSISTANT SECRETARY OF DEFENSE FOR LEGISLATIVE AFFAIRS; DONALD M. 
 REMY TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE ARMY; DR. MICHAEL 
    NACHT TO BE ASSISTANT SECRETARY OF DEFENSE FOR GLOBAL STRATEGIC 
 AFFAIRS; WALLACE C. GREGSON TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
  ASIAN AND PACIFIC SECURITY AFFAIRS; JO-ELLEN DARCY TO BE ASSISTANT 
  SECRETARY OF THE ARMY FOR CIVIL WORKS; AND DR. INES R. TRIAY TO BE 
       ASSISTANT SECRETARY OF ENERGY FOR ENVIRONMENTAL MANAGEMENT

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:04 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, 
Bill Nelson, Ben Nelson, Webb, McCaskill, Udall, Hagan, Begich, 
Burris, McCain, Inhofe, Martinez, Wicker, and Collins.
    Also present: Senators Baucus, Cochran, and Landrieu.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Paul J. Hubbard, receptionist.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; William G.P. Monahan, counsel; Russell 
L. Shaffer, counsel; and William K. Sutey, professional staff 
member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Pablo E. Carrillo, minority investigative 
counsel; Daniel A. Lerner, professional staff member; David M. 
Morriss, minority counsel; Lucien L. Niemeyer, professional 
staff member; Christopher J. Paul, professional staff member; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Kevin A. Cronin and Christine G. 
Lang.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Ann Premer, assistant to 
Senator Ben Nelson; Jon Davey and Patrick Hayes, assistants to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Jennifer Barrett, assistant to Senator Udall; Brady King, 
assistant to Senator Burris; Anthony J. Lazarski, assistant to 
Senator Inhofe; Jason Van Beek, assistant to Senator Thune; 
Brian W. Walsh, assistant to Senator Martinez; Erskine W. Wells 
III, assistant to Senator Wicker; Rob Epplin and Chip Kennett, 
assistants to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. This is a very, 
very exciting morning for many of us, for families and friends. 
We have a huge agenda ahead of us. So we are going to have to 
push on.
    Instead of the nominees sitting at that table, I would 
suggest if you can find room on the side, you do that, and let 
our introducers all sit at that table because we are going to 
start off with them as soon as I make a brief opening 
statement.
    I wonder if the Senators who are going to be making 
introductions can just sit right at the green table there right 
now, and then we will call on you in order. We are going to 
change things around a little bit here, save some time.
    Senator Baucus, you can just sit anywhere there, too.
    Today, the committee considers a number of nominations for 
the Department of Defense (DOD). In the first panel, we are 
going to hear from the following nominees: the Honorable 
Raymond Mabus to be Secretary of the Navy, Robert Work to be 
Under Secretary of the Navy, Elizabeth King to be Assistant 
Secretary of Defense for Legislative Affairs, and Donald Remy 
to be General Counsel for the Department of the Army.
    In the second panel, we are going to hear from the 
following nominees: Dr. Michael Nacht to be Assistant Secretary 
of Defense for Global Strategic Affairs, Wallace Gregson to be 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs, Jo-Ellen Darcy to be Assistant Secretary of the Army 
for Civil Works, and Dr. Ines Triay--I hope I am pronouncing 
that name correctly--to be Assistant Secretary of Energy for 
Environmental Management.
    Now, I am going to cut short my comments about each of the 
nominees until we come to their panel because we want to give 
the Senators who are with us to make introductions an 
opportunity to proceed because of the schedules that they have, 
and then I will also avoid repeating a lot of what we expect 
they will be saying.
    Let me call on Senator McCain for his opening comment.
    Senator McCain. As I always follow your lead, Mr. Chairman, 
I will do the same.
    Thank you.
    Chairman Levin. Thank you very much, Senator McCain, as 
always for your great cooperation.
    Senator McCain. I welcome the nominees, and I know our 
colleagues will make their remarks very brief also. [Laughter.]
    Chairman Levin. Well, I think we may leave each other at 
that point. I am not sure.
    Now we are going to call on our colleagues who are going to 
be making the introductions first. Senator Baucus.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Abraham Lincoln once said, ``Character is like a tree and 
reputation like its shadow. The shadow is what we think of it. 
The tree is the real thing.''
    Chairman Levin, Ranking Member McCain, fellow Senators, as 
you prepared for this hearing, you likely learned about the 
fine reputation of Jo-Ellen Darcy. Having known and worked with 
Jo-Ellen for the last 16 years, I can assure you that Jo-Ellen 
has an unprecedented knowledge of the Army Corps of Engineers 
and has the highest character. She has earned her reputation. 
Jo-Ellen is the real thing.
    She joined the staff of the Environment and Public Works 
Committee in 1993 when I became chairman. She worked on the 
committee for more than a decade, responsible for, among other 
things, legislation relating to the Clean Water Act, Safe 
Drinking Water Act, and Endangered Species Act.
    Perhaps her most important contribution in this area was 
her work on the Safe Drinking Water Act of 1996, which is, to 
my mind, a model environmental law because it makes the law 
work more efficiently for cities and towns, and at the same 
time, it improves the protection of public health.
    Most relevant to the position to which she has been 
nominated, Jo-Ellen was also the principal staffer responsible 
for legislation leading to the Water Resources Development Act. 
She became one of the Nation's foremost authorities on that 
law.
    During her tenure, she helped pass some of the Corps' most 
sweeping initiatives, from restoring the Everglades to better 
protecting New Orleans in the wake of Hurricanes Rita and 
Katrina and requiring independent peer review of Corps 
projects.
    Jo-Ellen's work has restored ecosystems, improved public 
safety, repaired our water infrastructure, and made the Corps 
more transparent and more accountable. If confirmed, I am sure 
she will continue to improve the work of the Army Corps of 
Engineers.
    In 2006, I was able to persuade Jo-Ellen to join the staff 
of the Senate Finance Committee, where she was instrumental in 
developing a series of tax initiatives for environmental 
protection, including those that were enacted as part of the 
farm bill. She has a record of great accomplishment, which is 
reflected in important environmental laws and environmental 
restoration projects all across the country.
    She knows the Civil Works Programs of the Army Corps as 
well as anyone. She knows the law. She knows the Congress and, 
in particular, the Senate and its committees, and she is 
uniformly respected for an effective, pragmatic, and bipartisan 
approach to her work.
    On a personal note, I would like to add that Jo-Ellen has 
achieved all of these accomplishments not only because of 
brains and hard work, but also because of her values. Her 
father, Dick Darcy, was a detective on the Fitchburg, 
Massachusetts, police force. He and his wife, Jean, raised Jo-
Ellen to have strong values, especially fairness and open-
mindedness, qualities that will serve her well.
    I am sure that, although he has passed away, Dick Darcy 
would be proud of his daughter today. I know that Jo-Ellen's 
mom, who is not able to travel here today, and her sisters, 
brothers, cousins, nieces, and nephews, many of whom I have 
met, could not be more pleased and proud about this nomination.
    So, Mr. Chairman, like you, I believe that there are few 
higher callings than public service. Jo-Ellen Darcy is the 
epitome of someone who has devoted her professional career to 
service, and I could not be more proud that the President has 
nominated her to serve as Assistant Secretary of the Army for 
Civil Works. Jo-Ellen is the real thing.
    Thank you.
    Chairman Levin. Thank you so much, Senator Baucus. We 
appreciate you and all of our colleagues coming here today for 
these very special moments in introduction.
    Senator Cochran.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much for the 
opportunity to be here before the committee.
    I am here to introduce to the committee the Honorable Ray 
Mabus, who has been nominated by the President to serve as 
Secretary of the Navy.
    This distinguished nominee has had a career of public 
service in our State that is quite impressive. After graduating 
summa cum laude from Old Miss in 1969 and completing a Woodrow 
Wilson fellowship at Johns Hopkins University in 1970, he 
served 2 years as a naval surface warfare officer onboard the 
USS Little Rock.
    After completing his active duty in naval service, he 
attended Harvard Law School and graduated magna cum laude in 
1976. He served as a law clerk to Judge J.P. Coleman on the 5th 
Circuit Court of Appeals, and he also worked as legal counsel 
to the U.S. House of Representatives Agriculture Committee here 
in Washington.
    He returned to Mississippi to work in Governor William 
Winter's office and was elected Mississippi State auditor in 
1983, where he served with distinction. Four years later, he 
was elected Governor of our State, and he led a period of 
record economic development, streamlined State government, and 
improved Mississippi's public schools.
    Ambassador Mabus was appointed by President Clinton to be 
United States Ambassador to Saudi Arabia in 1994. He served 
there for 2 years before returning to the private sector. He 
served on several corporate boards of international businesses. 
He is a member of the RAND Center for Middle East Public Policy 
and the Council on Foreign Relations.
    I know that Ambassador Mabus will bring to this job the 
same high level of energy and skill that has been the hallmark 
of his career throughout the many responsibilities of public 
service that he has held. His academic credentials, his record 
of distinguished service to the State of Mississippi and to our 
country has been exemplary.
    His integrity and judgment will also serve him well, and he 
will certainly prove to be, in my opinion, an excellent choice 
to be Secretary of the United States Navy. I commend President 
Obama for nominating him, and I look forward to working with 
him in this new capacity.
    Thank you.
    Chairman Levin. Thank you, Senator Cochran.
    I think we will complete the introductions for Governor 
Mabus and call on Senator Wicker now.

STATEMENT OF HON. ROGER F. WICKER, U.S. SENATOR FROM THE STATE 
                         OF MISSISSIPPI

    Senator Wicker. Thank you very much, Mr. Chairman and my 
fellow colleagues on the committee.
    It is an honor for me to be here today. Senator Cochran and 
I represent the Magnolia State of Mississippi. If you could sit 
a little closer to me, in honor of Governor Mabus, I am wearing 
my magnolia tie this morning.
    We are joined by two colleagues from the House of 
Representatives, Chairman Bennie Thompson of the 2nd District 
of Mississippi and Representative Travis Childers of the 1st 
District of Mississippi. So it is a proud moment for people in 
the Magnolia State--Republican, Democrat, and Independent. 
Senator Cochran's presence and introduction testifies that we 
are continuing today in a strong tradition of bipartisanship of 
this Congress when it comes to matters of national defense.
    Let me simply reiterate that in nominating Governor and 
Ambassador Mabus, President Obama has chosen well. Senator 
Cochran mentioned the stellar academic record of Governor Mabus 
as a top graduate from the University of Mississippi, a 
master's at Johns Hopkins, and a law degree from Harvard. 
Clearly, a great quantity of gray matter will be housed in the 
Navy department in the person of Ray Mabus.
    His service as a naval surface warfare officer I think will 
serve him well in this capacity. As Thad mentioned, he has 
twice been elected to State-wide office as auditor of public 
accounts and as Governor of Mississippi.
    When I had the opportunity to serve with Governor Mabus as 
a freshman Republican State senator from Lee County, I think it 
is fair to say that when Ray Mabus and Roger Wicker were 
sitting around the Governor's office, perhaps sharing differing 
views on various approaches to revenue challenges that we were 
having during that time, neither of us expected to be in this 
room at this particular moment in 2009 with this introduction.
    Nevertheless, I am delighted to be here and to join Senator 
Cochran in this introduction. I think Governor Mabus' 
experience as Ambassador to Saudi Arabia will also stand him in 
good stead, as will his experience in the private sector as 
Chief Executive Officer of Foamex, a polyurethane company, 
where he helped to move the company out of Chapter 11 
bankruptcy.
    Governor Mabus is joined today by his lovely family, and I 
am sure, Mr. Chairman, you will want him to make that 
introduction. But, indeed, they are a credit to Governor Mabus, 
Ambassador Mabus.
    I expect Ray to run a tight ship for the taxpayers, and I 
think the President has chosen well on behalf of national 
security and on behalf of the best interest of America's 
sailors and marines.
    I thank you very much, and I am delighted to join my senior 
colleague in this introduction.
    Chairman Levin. Well, thank you both for a wonderful 
introduction, and thanks to your colleagues from the House for 
joining us here today as well.
    Senator Landrieu.

STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR FROM THE STATE 
                          OF LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman, and thank you, 
Senator McCain and fellow Senators, ladies and gentlemen.
    I am here for two reasons this morning, and I will be 
brief. One is to reluctantly support my friend Ray Mabus for 
Secretary of the Navy, only under the condition that he be fair 
to the State of Louisiana in shipbuilding with our neighbor 
Mississippi. But I am convinced that he will, and I have 
observed him for many years, and he will be an outstanding 
leader.
    Second, Mr. Chairman, to joyfully introduce to you Donald 
Michael Remy, who is being nominated for General Counsel for 
the Department of the Army. Although Mr. Remy was born close 
here to Washington, DC, his roots go very deep in Louisiana. He 
is here with his parents, who I would like the committee to 
welcome: Master Sergeant Donald E. Remy and his wife, Mrs. Ann 
Remy, who come from Harvey, LA.
    His father dedicated many of his years to the Army, 
retiring finally from Fort Polk. Ann is the bedrock that has 
kept this family Army strong these many years and, I am 
confident, had a great influence in preparing her son for the 
position that he is being nominated by President Obama this 
morning.
    Of course, Don's wife, Monitra, and his two sons, Alex and 
Jason. Would you welcome the family this morning?
    Thank you.
    As I said, he was born in Fort Lee, VA, but his roots run 
deep, graduating from Leesville High School, and graduating cum 
laude Howard University Law School. He received his 
undergraduate degree from Louisiana State University.
    Throughout his career, Mr. Remy has served in numerous 
capacities, both the Government and private sector. Early on as 
an Army officer assigned to the Pentagon, he advised senior 
Army officials on numerous legal and policy issues related to 
major weapon acquisition systems. He has also served in the 
Department of Justice as senior counsel for policy and as 
Deputy Assistant Attorney General for Torts in Federal program 
branches of the Civil Division.
    Moving into the private sector, where he has extensive 
experience, he served as attorney for a major U.S. company. He 
currently is a partner in a major and very prestigious 
Washington, DC, law firm of Latham & Watkins.
    Mr. Remy has demonstrated tremendous commitment to this 
field over many years. He is no stranger here on Capitol Hill, 
having published, lectured, and testified before Congress on 
numerous occasions.
    I have appreciated the opportunity, Mr. Chairman, to work 
over the years with Don Remy. Our paths have crossed, 
particularly as he led efforts to help our continued work to 
rebuild the Gulf Coast after Hurricanes Katrina and Rita. 
Confirming him will bring credit to this committee as well as 
to DOD and our Nation. So I urge you to confirm him as 
expeditiously as possible for general counsel of the Department 
of the Army.
    Thank you very much, and I appreciate the opportunity, Mr. 
Chairman.
    Chairman Levin. Thank you so much, Senator Landrieu, and 
thank you all for coming.
    Senator Wicker. Mr. Chairman?
    Chairman Levin. Senator Wicker?
    Senator Wicker. I have noticed that since the hearing 
began, we have been joined by a third colleague from the House, 
Chairman Gene Taylor of Mississippi, the chairman of the 
Seapower Subcommittee of our counterpart at the other end of 
the building. So we are delighted to have three members of the 
House here in support of Governor Mabus.
    Senator Landrieu. Now I am really feeling nervous, Mr. 
Chairman. Thank you. [Laughter.]
    Chairman Levin. Another old friend. We welcome them all.
    Now, Senator Reed has an introduction.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM THE STATE OF 
                          RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman.
    I am privileged and extraordinarily proud to introduce 
Elizabeth L. King, the President's nominee to be Assistant 
Secretary of Defense for Legislative Affairs. Liz and I have 
been colleagues for 13 years, as she has been a colleague to 
this committee.
    She has an extraordinary grasp of the legislative issues 
and the legislative process. But she is also outstanding in 
terms of her intelligence, her integrity, her judgment, and her 
commitment to the men and women who serve in the military 
forces.
    That commitment is not just rhetorical. I doubt there are 
very few civilian appointees to DOD that can claim they have 
traveled 11 times to Iraq to visit forces in the field, 7 times 
to Afghanistan, 4 times to Pakistan, to Colombia, to Bosnia 
when we had troops committed there, and to East Timor when we 
had a Marine Expeditionary Corps there. She has seen what 
soldiers, sailors, marines, and airmen do, how difficult it is, 
and she will represent them extremely well on Capitol Hill.
    She has great experience not only here in the Senate, but 
in the process of the 1995 Base Realignment and Closure 
Commission, she was a chief assistant to the chairperson. She 
served in the House with Congressman Marty Meehan of 
Massachusetts. She is, again, an extraordinary individual.
    She is a product of a strong, devout family of Chicago. Leo 
and Rita King are not with us today, but their legacy lives on 
in a woman committed to public service. Her sister Celeste and 
Liz are raising their nephew Brendan, who is not here today 
because he is getting ready for the SAT. Brendan's mother, 
Bernadette, passed away too soon, but with two strong Irish 
women behind him, he is going to be a great success, I am sure.
    It is difficult to part company with someone you have 
worked with as a colleague for 13 years, but I do so knowing 
that she can serve even more widely and more adroitly than any 
woman in the armed services in her new position. I am proud to 
introduce her to this committee.
    Chairman Levin. Thank you very much, Senator Reed.
    Now Senator Webb will be introducing General Gregson, but 
he is on the second panel. We expect Senator Webb will be able 
to get here for that second panel.
    Let me just make one introduction because there was no one 
here to introduce Mr. Work.
    Mr. Work served a career in the Marine Corps, retiring 
after 27 years of service. He then served at the Center for 
Strategic and Budgetary Assessments, where he has focused on 
defense strategy, transformation, and also maritime affairs.
    Our other nominees on the first panel have all been 
introduced, so I will not repeat what has been said about them. 
I will put my statement regarding them, however, in the record.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Today, the committee considers a number of nominations for the 
Department of Defense. In the first panel, we will hear from the 
following nominees: the Honorable Raymond E. Mabus to be Secretary of 
the Navy; Robert O. Work to be Under Secretary of the Navy; Elizabeth 
L. King to be Assistant Secretary of Defense for Legislative Affairs; 
and Donald M. Remy to be General Counsel of the Department of the Army. 
In the second panel, we will hear from the following nominees: Dr. 
Michael Nacht to be Assistant Secretary of Defense for Global Strategic 
Affairs; Wallace Gregson to be Assistant Secretary of Defense for Asian 
and Pacific Security Affairs; Jo-Ellen Darcy to be Assistant Secretary 
of the Army for Civil Works; and Dr. Ines R. Triay to be Assistant 
Secretary of Energy for Environmental Management.
    Each of our nominees has a long history of public service. Governor 
Mabus served as Governor of Mississippi, and from 1994 to 1996, was 
Ambassador to Saudi Arabia. Subsequently, Governor Mabus served as 
Chairman and Chief Executive Officer of Foamex, a large manufacturing 
company, where he led that company out of bankruptcy. Notably, Governor 
Mabus served in the Navy as a surface warfare officer aboard the 
cruiser USS Little Rock.
    Mr. Work served a career in the Marine Corps, retiring after 27 
years of service. Thereafter, he has served at the Center for Strategic 
and Budgetary Assessments, where he focused on defense strategy and 
transformation and maritime affairs.
    Ms. King is well known to this committee. For the past 12 years, 
Ms. King has served as Counsel and Senior Policy Advisor for Senator 
Jack Reed for defense, foreign affairs, and veterans' issues. Prior to 
that, she was legislative director for a member of the House Armed 
Services Committee, and was counsel to the 1995 Base Realignment and 
Closure Commission.
    Mr. Remy is a partner at the law firm of Latham & Watkins, where he 
has dealt with criminal and civil litigation, and advised clients on 
International Traffic and Arms Regulations, the Office of Foreign 
Assets Control and Foreign Corrupt Practices Act enforcement. From 1997 
to 2000, Mr. Remy served in the United States Department of Justice as 
a Senior Counsel for Policy and as a Deputy Assistant Attorney General 
for the Torts and the Federal Programs Branches of the Civil Division. 
Earlier, as an Army Captain, Mr. Remy was an Assistant to the General 
Counsel of the Army from 1991-1995, where he advised senior Army 
officials on legal and policy issues concerning all aspects of 
government contracting, specifically including major weapon system 
acquisition.
    I will save the introductions for the second panel until we have 
finished questioning the first panel.
    We welcome our nominees and their families to today's hearing. 
Senior Department of Defense officials put in long hours every day, and 
we appreciate the sacrifices that our nominees and their families are 
willing to make to serve their country.
    If confirmed, Governor Mabus and Mr. Work will assume leadership of 
the Navy organization at a difficult time. There are well known 
concerns about naval aviation and potential shortages of aircraft, Navy 
shipbuilding programs that are behind schedule and over budget, and 
more recently, we are hearing reports of readiness problems with the 
fleet. These are very difficult issues that will merit their personal 
attention.
    If confirmed, Ms. King will join DOD when communications between 
Congress and the Department of Defense will be critical. As I am sure 
Ms. King knows, the Assistant Secretary for Legislative Affairs, has 
two sets of clients: one set in the Department, where she will assist 
the Secretary in representing Departmental positions to Congress, and 
another set in Congress, where she will represent the concerns of 
Congress to the Secretary and his team as they consider and decide 
major policy issues.
    If confirmed as General Counsel for the Department of the Army, Mr. 
Remy will lead the Army legal team as the Army's chief legal officer, 
determine the controlling legal positions of the Department of the Army 
and provide professional guidance to the Army's legal community. He 
will come to this position at a time when there are many concerns and 
issues to be addressed relating to personnel and acquisition matters.
    I look forward to the testimony of our nominees on these and other 
important issues.
    Senator McCain, do you have a statement that you would like to make 
at this time?
    I know that we have a number of Senators who have requested time to 
make introductions this morning. In the interest of time, we will hear 
from those Senators at the beginning of the hearing, without regard to 
the panel which includes the nominee to be introduced.

    Chairman Levin. I guess the order of battle here is first 
to call on Governor Mabus.

STATEMENT OF RAYMOND E. MABUS, JR., NOMINEE TO BE SECRETARY OF 
                            THE NAVY

    Ambassador Mabus. Mr. Chairman, Mr. Ranking Member, members 
of the committee, thank you so much for giving me this 
opportunity to appear before you.
    I want to thank Senator Cochran and Senator Wicker for 
their very kind introductions. I have worked with both for more 
than two decades, and I appreciate it very much.
    I also thank the members of the Mississippi congressional 
delegation: Gene Taylor, Bennie Thompson, Travis Childers, and 
Congressman Gregg Harper had a conflict today and could not be 
here. But thank you so much for being here today in support of 
my nomination.
    Chairman Levin. Governor, I am sorry, let me interrupt you 
just for a minute.
    Ambassador Mabus. Absolutely.
    Chairman Levin. I failed to say something which is perhaps 
the most important, which is how indebted we are to all of your 
families, whether they are here or they are not able to be 
here, for their great support of you. It makes a huge 
difference in your lives, as you all know because you have been 
in public service. Each of you feel free to make those 
introductions as you proceed.
    Ambassador Mabus. Thank you so much, Mr. Chairman, and that 
gives me a great segue into introducing my family.
    My wife, Lynne, who is a nurse and whose father was an Air 
Force doctor when she was born; our daughter Elisabeth, who is 
a freshman at Harvard; our daughter Annie, who is a junior at 
St. Andrew's Episcopal School in Mississippi; and our daughter 
Kate, who is a second grader, also at St. Andrew's.
    I want to echo what the chairman said about how important 
families are, particularly in just being there when people are 
in public service.
    I also want to express my deep appreciation to President 
Obama for nominating me to this position and Secretary Gates 
for everything that he has done.
    The Navy and the Marine Corps play critical roles in our 
Nation's service: fighting America's wars, projecting power 
where needed, protecting the sea lanes, delivering disaster 
relief, cooperating with other countries in efforts to multiply 
force, trying and preventing conflicts from arising or from 
turning into things which are larger, more dangerous, and 
harder to control, providing training and other assistance to 
nations around the globe, and doing many of these things in a 
sea-based, minimum footprint way.
    The job of the Secretary has many facets. They range from 
making sure that the Navy and Marine Corps recruit, train, and 
retain exceptional forces, to ensuring that those forces have 
enough of the right equipment to do their job, to caring for 
them and their families daily and especially in times of 
crisis, to working with Congress and the other Services in the 
larger DOD.
    These are important times for the Marine Corps and the 
Navy. Thousands of brave marines and sailors are engaged in 
Iraq and Afghanistan while courageous thousands more carry out 
hazardous duties around the globe. These incredible, wonderful 
young Americans all volunteered to serve and are defending and 
representing the United States and all of us.
    The Navy Department faces complex challenges. One of the 
most important is gaining control of an acquisition process, 
which far too often overpromises and underprices, breaks--
sometimes spectacularly--budgets and schedules, ups 
requirements while lowering quantities, and resists 
accountability. If confirmed, this will be one of my areas of 
concentration.
    Again, if confirmed, I look forward to working with the 
members of this committee to make sure we don't shortchange our 
sailors, marines, and taxpayers because of an out-of-control 
process.
    My family history and my life's experiences will, if you 
confirm me, be crucial in doing this exacting job. My father 
served as a naval officer during World War II. His brother, my 
uncle, was a West Point graduate who was at the academy during 
World War I and served again during World War II. My mother's 
youngest brother, another uncle of mine, flew in both the North 
African and European theaters during World War II.
    When it came my time to serve, I became a surface warfare 
officer in the Navy, and the time I spent in the Navy as a 
young man was one of the most profound experiences of my life. 
It helped me so much in the other things that I have 
undertaken.
    The people of Mississippi have honored me beyond measure by 
electing me both Governor and, before that, State auditor. As 
auditor, it was my job to make sure public money was being 
spent correctly. In it, I learned about hard decisions 
involving finance.
    From my period as Governor, I know that one person cannot 
do everything and that cooperation and collaboration, 
especially with the legislative branch, is crucial if anything 
is to be accomplished.
    Later, when I served as United States Ambassador to Saudi 
Arabia, I saw firsthand what our military and all of us face in 
that critical and exceedingly complex part of the Earth. From 
my time in the private sector, I bring lessons of efficiency 
and competition.
    As a youngster growing up in Ackerman, MS, I could not have 
imagined how rich and varied my life was to be so far. I, like 
so many people in this room, have lived my own part of the 
dream that is quintessentially American.
    If you confirm me, I look forward to working with you, the 
President, Secretary Gates, and many others to make sure that 
the country which allows such dreams is well protected by our 
Navy and Marine Corps.
    Thank you, and I look forward to your questions.
    Chairman Levin. Thank you so much, Governor.
    Next we will call on Robert Work, nominated to be Under 
Secretary of the Navy.

 STATEMENT OF ROBERT O. WORK, NOMINEE TO BE UNDER SECRETARY OF 
                            THE NAVY

    Mr. Work. Mr. Chairman and Senator McCain, distinguished 
members of the committee, I am truly honored to be before you 
today as President Obama's nominee as the Under Secretary of 
the Navy. Serving in this post would be a great privilege, and 
I am grateful to both the President and Secretary Gates for 
choosing me for this position.
    I would also particularly like to thank my family for being 
here today and supporting me, and I would like to introduce 
them to the panel and yourself, sir.
    First is the love of my life, my bride of 31 years, 
Cassandra. She is a former Army nurse and mother of my 
beautiful daughter, Kendyl, who is finishing her first year at 
Randolph Macon College here in Virginia. I am forced to tell 
you that she is a proud new sister in Delta Zeta sorority. I am 
also joined by my brother, Skip, a former marine and now a 
director for contracting and an author.
    Unfortunately, neither my dad nor mom could be here today. 
My father fought as a marine in three different wars, retired 
after over 30 years of active duty. But he was a marine until 
the day he died. My mom was a Navy nurse, served in World War 
II. I, myself, was a marine for 27 years, and my brother, Skip, 
a marine for another 20.
    So my birth family has contributed about 84 years of active 
service to the Nation in the Department of the Navy, my wife 
another 6 in the Department of the Army, and my wife and 
daughter another 34 years supporting me while I was on active 
duty.
    So as you might imagine then, Mr. Chairman and members of 
the committee, I am both humbled and excited about the prospect 
of returning to service and especially at having the 
opportunity of being in a department that I so respect and 
love. If we are confirmed, I look forward to helping Governor 
Mabus lead the finest Navy and Marine Corps in the world and 
working closely with members of the committee and your 
respective staffs in carrying out the duties and 
responsibilities of the Under Secretary of the Navy.
    Being called upon to serve our country at any time is a 
great honor, but being asked to serve in time of war is an 
especially high one and one that comes with important 
responsibilities. If confirmed, I give you my word I will do 
everything possible to ensure that our brave sailors and 
Marines have what they need to prevail in combat and that they 
go into harm's way knowing that their families will receive the 
support that they deserve.
    I will also work hard with the Secretary of the Navy to 
ensure that our nearly 11,000 wounded warriors receive the best 
care possible and that the families of our fallen are treated 
with the dignity and respect they deserve.
    I am also mindful that because of what looks like to be an 
especially challenging fiscal and budgetary environment, the 
incoming Secretary and Under Secretary will be forced to make 
hard decisions about the future Navy and Marine Corps. If 
confirmed, I believe that my lifelong experience, first as an 
active duty dependent, then a military officer, a husband and 
father of a military family, and a leader strategist and 
analyst, well prepares me to contribute to these decisions.
    However, I pledge not to enter this important job with any 
preconceived notions or positions. I will listen to the best 
available civilian and military advice and, when asked, give 
honest, pragmatic advice and counsel to the Secretary of the 
Navy, the Secretary of Defense, and the President.
    If confirmed as the Under Secretary, I will also work hard 
as the department's Chief Management Officer (CMO) to tee up 
well thought-out positions and recommendations to the Secretary 
on a full range of Department of Navy activities, lead and 
manage the Department's Senior Executive Service, and explore 
ways to improve departmental business practices across the 
board.
    In closing, I want to again thank President Obama for 
nominating me to this position and Secretary Gates for 
supporting my nomination. I am honored and truly humbled to be 
before you today. If the Senate chooses to confirm me in this 
position, I hope to justify your trust fully and look forward 
to working closely with all of you in maintaining our great 
Navy and Marine Corps.
    Thank you, Mr. Chairman. I look forward to the questions.
    Senator Inhofe. Mr. Chairman? Mr. Chairman?
    Chairman Levin. Yes?
    Senator Inhofe. Just a brief comment. I am ranking member 
on the Environment and Public Works Committee. My attendance is 
required at a meeting coming up.
    But I want to say and get on the record that I am in full 
support of all the nominees today on both panels. I have worked 
with Ms. King back when she was with Marty Meehan on different 
causes, and certainly with Jo-Ellen Darcy, I agree with 
everything that Senator Baucus said.
    I want to make this one comment, though. I know there is 
some request to have a confirmation hearing for Ms. Darcy 
before the Environment and Public Works Committe, and I think 
that if I can just go ahead and submit the questions as it 
would pertain to that committee, maybe that can be avoided. We 
will try to do that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Now Liz King is an old friend of this committee. It is 
wonderful to see you here in any capacity, but a little bit 
strange to see you on the other side of this dais.
    Ms. King. Indeed.
    Chairman Levin. Welcome.

    STATEMENT OF ELIZABETH L. KING, NOMINEE TO BE ASSISTANT 
          SECRETARY OF DEFENSE FOR LEGISLATIVE AFFAIRS

    Ms. King. Thank you. Thank you, Mr. Chairman.
    Senator Levin, Senator McCain, members of the committee, 
thank you for the opportunity to appear here today.
    I would like to begin by recognizing and thanking my sister 
Celeste and my nephew Brendan. While they could not be here 
today, I know they are with me in spirit, and their love, 
understanding, and camaraderie mean the world to me.
    I would also like to thank a small army of friends, many of 
whom are here today. They have given me their love, support, 
and loyalty for many years, and it has made all the difference.
    Finally, I would like to thank Senator Reed not only for 
his introduction, but for the privilege of working for him for 
the past 13 years. He has been a wonderful boss, mentor, and 
friend. Opportunities to work for someone like him do not come 
along often in one's life, and I will always treasure the 
experience.
    It has been an honor to work on Capitol Hill for the past 
14 years. If I am confirmed, I may be switching offices, but I 
look forward to continuing to work with the members of the 
Senate and House and their staffs to solve problems, implement 
legislation, and provide needed information in a timely 
fashion.
    I hope to foster a strong partnership between Congress and 
the DOD so that together we can reach the common goal of 
meeting the needs of the men and women in uniform who 
tirelessly serve our Nation.
    Thank you.
    Chairman Levin. Thank you very much, Ms. King.
    Now Mr.--is it ``Ray-mee'' or ``Ree-mee''?
    Mr. Remy. It is ``Rem-mee,'' Mr. Chairman.
    Chairman Levin. Remy. I will get it right the third time. 
Mr. Remy?

 STATEMENT OF DONALD M. REMY, NOMINEE TO BE GENERAL COUNSEL OF 
                   THE DEPARTMENT OF THE ARMY

    Mr. Remy. Thank you, Mr. Chairman.
    Chairman Levin, Senator McCain, and distinguished members 
of the committee, it truly is an honor and a privilege to 
appear before you today as the nominee for General Counsel of 
the Army.
    I am grateful to President Obama for his confidence in me 
and, if confirmed, for giving me the opportunity to return to 
my roots at the Pentagon and serve alongside the men and women, 
civilian and uniformed, who protect and defend our country.
    Mr. Chairman, I am especially thankful to you, to Senator 
McCain, the committee, and your staffs for holding this hearing 
so promptly. I also want to thank Senator Landrieu for her kind 
introduction.
    If I may, I would like to follow up on the introduction 
that Senator Landrieu provided of my family. Were it not for 
the unconditional love and support of my family, my friends, 
and for the grace of God, I would not be before you today.
    In the audience today is my partner and head coach in what 
we refer to as ``Team Remy,'' Monitra, my wife. She has been 
with me on our journey for 22 years, since our days in Reserve 
Officers' Training Corps as cadets together.
    Seated beside her are our two terrific sons: Alex, who is 
15, and Jason, who is 11. Members of the committee, these two 
boys are happy to be here today and enjoy this civics lesson 
rather than go to school. [Laughter.]
    Their mother and I could not be more proud of the young men 
they have become and the future that they have ahead of them. 
Indeed, it wasn't until I was a parent myself that I truly 
appreciated all that my parents did to help me become the man 
that I am.
    Last year, Secretary of the Army Geren declared 2009 the 
Year of the Noncommissioned Officer (NCO), and I can think of 
no better tribute to the NCO than to offer my thanks in this 
forum to my father, retired Army Master Sergeant Donald Remy, 
who was awarded the Bronze Star for his service in Vietnam.
    But we all know that beside every great soldier is the 
soldier's spouse. Just as my father dedicated 25 years of 
service to this Nation, so, too, did my mother, Ann Remy. 
Whether my father was deployed or at home, my mother was 
steadfast in caring for and raising not just me and my brother 
Adrian and sister Renee, who could not be here today, but also 
many other sons and daughters of our Army community.
    While many friends and colleagues are here today, I want to 
thank, in particular, my sister-in-law, Christine Butler, for 
her presence and always being there for our family. I also want 
to recognize one of my closest friends, former Federal 
Communications Commission chairman, the Honorable Michael 
Powell.
    America's Army is pivotal to the strength of our Nation. In 
an ever-changing global dynamic, the Army continues to adapt 
its aim to achieve and maintain balance for the 21st century. 
The issues, particularly the legal issues that arise in that 
context are complex, challenging, and, in some instances, 
unprecedented.
    If confirmed, I want to assure the committee that I am 
committed to working cooperatively with the Judge Advocate 
General (JAG) to provide expert, timely, value-added advice to 
the Army Secretariat and the Army staff. I am committed to 
assisting the department's efforts to assure that the 
acquisition process for materiel and services is efficient, 
effective, and compliant with our laws and regulations.
    I am committed to making certain that the Army's 
transformation is accomplished consistent with the rule of law 
and a practical understanding of the issues affecting our All-
Volunteer Force and their families.
    Senator Landrieu kindly noted my background and dedication 
to public service. I have served our Nation in uniform as a 
soldier and as a public servant in both the Department of the 
Army and the Department of Justice. I am greatly humbled by the 
opportunity to serve again. If confirmed, I pledge to work 
closely with this committee to support and promote the 
outstanding men and women of the United States Army and their 
families.
    I welcome your questions, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]
              Prepared Statement by Senator Mark R. Warner
    It's an honor and a privilege to support Donald Remy's nomination 
before the Senate Armed Services Committee. I strongly endorse Don's 
nomination and look forward to his confirmation as General Counsel of 
the Army. I know that Don will perform admirably as the chief attorney 
for the Army. This is a job of utmost importance as the General Counsel 
is charged with the weighty responsibility of determining the Army's 
legal stance on many of our Nation's most challenging issues.
    Don brings a wealth of experience to this position from the private 
sector including his distinguished work as an attorney and businessman. 
In the private sector, he served in numerous high level legal roles and 
has tremendous experience in employment, procurement, and contracting 
law.
    Don completed his undergraduate schooling at Louisiana State 
University, where he graduated with honors and was commissioned a 2nd 
Lieutenant in the United States Army. He then finished Cum Laude at 
Howard University Law School, where he also served as the Executive 
Articles Editor of the Law Journal. Upon graduation from Howard he was 
selected to serve as a clerk to The Honorable Nathaniel R. Jones of the 
United States Court of Appeals for the Sixth Circuit.
    Don has also made public service a priority during his career. He 
has published, lectured and testified before Congress on legal topics 
relating to torts, constitutional law, employment law, diversity, 
government contracts, litigation and compliance. During his time in the 
Army General Counsel's Office, he lectured at the Judge Advocate 
General's School and the Army Materiel Command. In 2005, Don was 
recognized by Black Enterprise as one of America's most powerful 
executives under 40.
    Don is also a respected leader, admitted to Practice Law in 
Pennsylvania, the District of Columbia, U.S. Supreme Court, U.S. Courts 
of Appeals for the Armed Forces, Sixth Circuit, Ninth Circuit, Eighth 
Circuit, Fifth Circuit and Fourth Circuit. He is a DC Bar Delegate to 
the American Bar Association and a member of the National Bar 
Association and Washington Bar Association. Don also sits on the Boards 
of Louisiana State University--University College, the Washington 
Lawyers Committee on Civil Rights and Urban Affairs, the Abramson 
Foundation, and the Legal Counsel for the Elderly.
    Now more than ever, the Nation needs his skills and commitment. I 
offer my strongest support to his nomination, and I look forward to his 
confirmation by the Senate.

    Chairman Levin. Thank you, Mr. Remy.
    Now, I will ask you to answer the following standard 
questions. You can all answer at once.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [All four witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All four witnesses answered in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All four witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All four witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All four witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify upon 
request before this committee?
    [All four witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee or to consult with 
the committee regarding the basis for any good faith delay or 
denial in providing such documents?
    [All four witnesses answered in the affirmative.]
    We thank you.
    Let us try 8-minute rounds and see if we can get all of our 
questions that we need to ask during that period. We are trying 
to fit a lot in this morning. If we can do it, it would be 
great.
    If we can't get both panels completed, we will have to 
figure out other arrangements. But we will give it a go.
    First, Governor Mabus, one initiative to improve management 
of our acquisition process within the department is Senate Bill 
454, which is sponsored by Senator McCain and myself. This bill 
would make several changes to current acquisition law: 
presuming that programs would be terminated if they breached 
the Nunn-McCurdy threshold, elevating the level of independent 
cost estimating, and dealing with organizational conflicts of 
interest.
    Governor Mabus first, and then I will ask you, Mr. Work, 
the same question. Are you familiar with our legislation?
    Ambassador Mabus. Yes, sir. Senator, I have read the 
legislation.
    Chairman Levin. Can you give us your personal opinion 
regarding any of the components of that legislation?
    Ambassador Mabus. It is very obvious that our acquisition 
process needs reforming in some fundamental ways that this 
legislation seeks to address. If I am confirmed, I look forward 
to working with this committee to make sure that those reforms 
are implemented, the reforms that Congress mandates are 
implemented effectively, timely, and in a very professional 
way.
    Chairman Levin. Mr. Work, do you have any comment?
    Mr. Work. Mr. Chairman, I fully agree with the intent of 
the legislation. I am especially drawn to trying to establish 
cost controls over out-of-control programs, independent cost 
estimation, and solving conflict of interest issues. I haven't 
been able to discuss fully with staff all of the aspects of the 
legislation and how it might be implemented, but I fully 
subscribe to the intent.
    Chairman Levin. Thank you.
    Mr. Work, if confirmed as Under Secretary, you are going to 
also become the first CMO of the Department of the Navy. We 
established this position in 2007 out of frustration with the 
inability of the military departments to modernize their 
business systems and processes.
    We chose to have the Under Secretary serve concurrently as 
CMO because no other official in the Department of the Navy, 
other than the Secretary, sits at a high enough level to cut 
across stovepipes and implement comprehensive change.
    Will you make the modernization of the Navy's business 
systems and processes a top priority?
    Mr. Work. Yes, Mr. Chairman, I will.
    In my interviews with both Secretary Gates and the Deputy 
Secretary, they indicated how important this position is and 
how much that they were going to exercise it. I look forward to 
working with the members of the committee to understanding the 
intent of the legislation and implementing it, if confirmed.
    Chairman Levin. Will you report back to this committee on a 
regular basis on any obstacles that you are encountering in 
that effort?
    Mr. Work. Absolutely, sir. Yes, sir.
    Chairman Levin. Now Chapter 633 of Title 10 establishes the 
requirement for a board of officers, commonly referred to as 
the Board of Inspection and Survey, to examine naval vessels. 
The committee is concerned about recent reports from that 
board, which have found that certain front-line ships of the 
Navy are unfit for combat operations, and forward-deployed mine 
countermeasure ships were unable to get underway in 2006. The 
Navy attacked the material issues to restore those ships to 
high readiness.
    However, subsequent reports of serious degradation to 
amphibious ships and, more recently, the determination that two 
Aegis combatants are unfit for combat operations raises 
concerns that there are systemic issues associated with 
organic-level maintenance and self-assessment that might 
jeopardize the Navy's ability to meet the objectives under the 
Navy's concept of operations called the Fleet Response Plan.
    Governor and Mr. Work, are you aware of recent reports that 
Navy readiness of the fleet has some real problems such that 
additional ships have been unable to get underway and have 
inoperable systems that might threaten crew safety? Are you 
familiar with those reports? Governor, you can answer first.
    Ambassador Mabus. I am aware of the reports, Senator. I 
have not had an opportunity to study them in any detail.
    Chairman Levin. Mr. Work, are you aware of the reports?
    Mr. Work. Yes, sir. I am.
    Chairman Levin. Will you both assure this committee that 
you are going to look into this matter to ensure that any 
classification of these reports is handled properly and not 
just done to shield the Navy from some unflattering press 
articles?
    Ambassador Mabus. Yes, sir.
    Mr. Work. Yes, sir.
    Chairman Levin. Ms. King, members and staff of this 
committee, we work well with the DOD officials on a day-to-day 
basis. We request and receive information that we need to 
understand the programs and activities of the Department and to 
meet the committee's oversight responsibilities.
    From time to time, the Department has decided to impose 
formal requirements on such exchanges, such as all 
communications having to go through the Office of Legislative 
Affairs, all requests for information to be in writing, no 
official of the DOD could discuss an issue until the Secretary 
has made a decision, and so forth.
    Now in our experience, and you have had an experience 
second to none for anybody who has, I think, ever been in the 
position to which you have been nominated, the imposition of 
that type of formal requirement could unnecessarily undermine 
the working relationship between this committee and the 
Department that has been so beneficial to both sides.
    I am wondering if you could give us your assessment as to 
the desirability of informal communication between department 
officials and the committee and whether it is necessary and 
essential at times? Also then why impose any formal 
requirements on such communications?
    Ms. King. I am aware that recently there has been some 
imposition of formal requirements. If I am confirmed, I plan on 
reviewing those procedures and processes because I believe that 
open channels of communication, getting everyone what they need 
in a timely manner in the most efficient way possible, is the 
best way to form a partnership between Congress and DOD.
    Chairman Levin. Okay. Thank you.
    Mr. Remy, increasing violence along the border with Mexico 
has brought renewed calls to use our military to assist the 
Border Patrol and Customs Service. Can you give us your 
thoughts on that? Any implications in terms of posse comitatus?
    Mr. Remy. Yes, Mr. Chairman.
    Mr. Chairman, the posse comitatus law deals with the 
ability of the uniformed personnel in our United States 
military to help States. I understand that there have been some 
circumstances where our military has been deployed, and there 
is a study underway looking at the deployment of our military 
forces along the border.
    That is something that I believe would require a 
significant amount of analysis and thought. If confirmed, I 
pledge to do that.
    Chairman Levin. All right. Mr. Remy, during the Iraq war, 
private security contractors were used to perform a wide 
variety of security functions requiring the use of deadly force 
in a hostile environment. To some extent, this was done out of 
necessity because we just didn't have and don't have yet 
sufficient troops to provide needed security.
    However, the extensive use of private security contractors 
in Iraq has resulted in a number of problems, including the 
2007 shooting incident in Baghdad, which resulted in the recent 
indictment of some employees.
    Do you agree that the Department needs to take steps to 
undertake first a comprehensive review of whether and to what 
extent it is appropriate for contractors to engage in functions 
that require them to make discretionary decisions about the use 
of deadly force, which is not in the military chain of command 
by definition?
    Mr. Remy. Yes, Mr. Chairman, I do believe that such a study 
is necessary.
    Chairman Levin. Do you undertake that review and your 
commitment to do it with any particular thoughts along that 
line?
    Mr. Remy. Yes. Mr. Chairman, if confirmed, if I have an 
opportunity to look into these issues, I will examine the 
question of whether or not individuals are doing functions that 
are inherently governmental functions and to determine whether 
or not it is appropriate to have contractors conduct 
interrogations, especially in the circumstance where those 
interrogations may impact the life or liberty of the 
individuals that are being interrogated.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman, and 
congratulations to the nominees, we look forward to as rapid 
confirmation as possible of your nominations.
    Ambassador Mabus and Mr. Work, you are aware of the 
situation concerning cost overruns. This has been particularly 
true of the United States Navy, whether it be on acquisition of 
aircraft, a Littoral Combat Ship, or other acquisition 
requirements that have had dramatic and really terrible cost 
overruns associated with them.
    Do you have thoughts on that, particularly in relation to 
the legislation that Senator Levin and I have introduced? We 
will begin with you, Governor.
    Ambassador Mabus. Yes, sir. The acquisition process has to 
be gotten under control or we are going to unilaterally disarm 
ourselves. We must begin to match up requirements with 
resources and make sure that our technology is mature before 
proceeding, stabilize the requirements for ships and aircraft 
during the manufacturing process, and have fair and adequate 
contracts going forward. If confirmed, one of my areas of 
intense concentration and focus will be on this whole 
acquisition process, both for new systems and for those already 
in place.
    Senator McCain. Have you looked at Senator Levin's and my 
legislation?
    Ambassador Mabus. Yes, sir. I have read it. As Mr. Work 
said in his statement, I believe the intent of the legislation 
absolutely goes to the heart of some of these matters. We have 
to make sure that we have good, independent cost estimates, so 
if systems spin out of control, there is some teeth to looking 
at whether to continue them or not.
    Senator McCain. Mr. Work?
    Mr. Work. This is a problem that has long years in 
building. I believe that the U.S. Navy, along with other 
members of the DOD acquisition team, lost what Admiral Phil 
Balisle used to refer to as ``technical authority,'' being able 
to set good requirements, being able to understand when a 
program is in trouble, and being able to set remedial actions 
to take care of problems.
    The intent of the legislation, especially on the 
independent cost estimation and tracking closely the costs as 
they grow and taking action as required, I think are exactly 
right. I don't fully understand the intent of the conflict of 
interest provisions of the legislation. Hopefully, if 
confirmed, I will be able to work with the committee to 
understand the intent and to keep these cost overruns from 
occurring.
    Senator McCain. Ms. King, I note that Senator Reed is next, 
and he will probably pose the most difficult questions for you. 
But, we have had a problem from administration to 
administration, whether it be Republican or Democrat, with 
candid views from the members of the administration that work 
on the other side of the river.
    This sometimes leads to needless conflict. Sometimes it 
leads to legislation which isn't developed in the closest 
coordination possible. I hope you will work to keep the 
committee informed and help us perform our constitutional 
duties.
    Ms. King. Yes, Senator McCain, I plan to do that.
    Senator McCain. So, you know from sitting on this side that 
some of the problems that we have had are both Republican and 
Democrat.
    Ms. King. Yes, sir.
    Senator McCain. Thank you.
    Mr. Remy, I noticed in your bio that you said you worked 
for a well-known company or corporation. That happened to be 
Fannie Mae, one of the organizations that is responsible for 
the severe crisis we are in today. I will be submitting 
questions to you concerning what responsibilities you had there 
and what decisions were made during that period of time that 
you worked there. Certainly, the collapse of Fannie Mae was a 
direct contributor to many of the economic difficulties we have 
today.
    Mr. Remy. Senator McCain, I am happy to answer any 
questions of yours or the committee's.
    Thank you.
    Senator McCain. Thank you.
    On the issue of the deployment of the military, I also 
serve on the Homeland Security and Governmental Affairs 
Committee, and we had a hearing in Phoenix, AZ, which is now 
the kidnapping capital of America, about border violence. From 
talking with the mayors, the sheriffs, the Governor, and the 
attorney general of my State, it is very clear that there is 
great danger of that violence spilling over into our State, 
Texas, New Mexico, and California.
    Now, all four Governors of border States have requested the 
deployment of the National Guard to the border for the reasons 
that I have just stated. Do you have views on this subject, 
particularly in light of the fact that the National Guard has 
been deployed in the past and there doesn't seem to be any 
large national crisis, constitutional crisis, associated with 
it?
    Mr. Remy. Senator McCain, I understand the concerns that 
the States are voicing, and I understand the need to have the 
security forces that are adequate to deal with the issues on 
those borders. I believe that, if appropriate, it would make 
sense to further examine that issue if it is something that is 
put into my space and, if confirmed, if it is something that I 
am charged with looking at.
    Presently, it is not an issue that I have studied at great 
length, but it is something that I would be committed to 
examine.
    Senator McCain. Let me even recommend to you that you take 
a trip down to the border and are briefed personally by the 
individuals not only that are tasked to enforce our border, but 
also the residents, the mayors, city councils, and others who 
are grappling with this very serious issue.
    I could give you numerous examples of how close this 
violence has come to spilling over, and actually has spilled 
over, into the United States of America. Now all of it, of 
course, is exacerbated by this threat of swine flu, which we 
all know is originated in the country of Mexico, as well.
    So you will have significant input into the decisions 
concerning deployment of Guard or regular forces to the border, 
and I hope that you will give it a priority of familiarizing 
yourself with this situation.
    Mr. Remy. Yes, Senator McCain. I will make it a priority.
    Senator McCain. Finally, Mr. Work, you said in your 
statement that you had some ideas about new approaches you are 
considering to curb rising health and personnel costs. What 
approaches are you considering?
    Mr. Work. During the last 2 weeks, we have received several 
briefings on both the Safe Harbor program and the Wounded 
Warrior program, as well as all of the health care issues that 
are facing the Department. The costs, Senator McCain, are 
rising much faster than the rate of inflation, and it is really 
causing a problem as far as execution in the Department of the 
Navy's budget.
    The only clear idea that I have right now, if confirmed, is 
to work with the Secretary, the two Service Chiefs, the 
Assistant Commandant, and the Vice Chief of Naval Operations to 
take a hard look at how we might be able to handle the problem 
within the service and then to work with members of the 
committee and also DOD to try to get a handle on healthcare 
costs writ large.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Governor Mabus, you bring an extraordinary range of 
experience to the task before you. I think the President made a 
very wise choice. I think particularly, as you point out, your 
experience as a young officer on the deck of a service 
combatant is going to be very critical.
    As my colleagues have suggested, the shipbuilding program 
in the Navy needs reform and attention, and there are just two 
issues that I think you probably don't have firm opinions, but 
I would like your comments upon.
    There is always a tradeoff between advanced technology and 
new hulls. Building ships or just improving technology, if you 
could comment on that?
    Also, any sense of whether you feel there is excess 
capacity, particularly in service combatant capabilities of 
building those ships?
    Ambassador Mabus. In terms of the first question, Senator, 
new technology, first, has to be looked at to decide whether it 
is appropriate; second, whether it is mature enough to be put 
on a combatant surface, subsurface ship, or airplane. Then 
there is the issue of stability of requirements because once 
you have begun, as you well know, construction, making major 
changes is one of the leading causes of stretching the 
completion date and raising the cost.
    I think you should look at, if new technologies come along, 
building ships in blocks so that the next block of ships can be 
upgraded in terms of technology, but not trying to make the 
ships that are currently under construction be the most perfect 
ships that you can have.
    Forgive me, but I have forgotten the second part of your 
question.
    Senator Reed. Just the issue of the excess capacity of 
particularly surface combatants in terms of the capacity to 
build these ships, the number of yards?
    Ambassador Mabus. Well, I believe, sir, that the number of 
yards is very small in terms of just sheer numbers. To keep the 
industrial base and to keep a well-trained workforce in order 
to build these ships that we are going to need, both today and 
in the future, we don't have any excess capacity, but we do 
need to work very hard to make sure that there remains 
competition among those shipyards.
    Senator Reed. Thank you, Governor. Governor, Ambassador, 
and soon-to-be Secretary, thank you.
    Ambassador Mabus. Thank you, Senator Reed.
    Senator Reed. Mr. Work, let me ask the same question, but a 
focus on the Marine Corps in terms of the technology that they 
need for this new asymmetric warfare. I know you have done a 
lot of work in terms of looking at this issue of how the Navy 
participates and the Marine Corps participates in asymmetric 
warfare, but are there technologies that the Marine Corps might 
need that they don't have, and would you focus on that?
    Mr. Work. Senator Reed, the Marine Corps combat development 
command has been, as I understand it, working very closely with 
the Department at large to determine these new capabilities. 
For example, I know that they have specifically looked at 
unmanned aerial vehicles and populating more of those 
throughout the Force, ground robotics, and advanced body armor 
for the Marines.
    I believe that the Commandant of the Marine Corps is very 
much interested in getting the right gear to the troops at the 
right time, as quickly as possible.
    Senator Reed. Thank you.
    I just want to note, too, that Congressman Taylor was here, 
Gene Taylor from Mississippi, a dear friend whom I served with. 
He has since departed, but looking at him, I just discovered 
how the Senate ages you. He still looks remarkably good.
    Mr. Remy, one of the issues that you will face is working 
with your uniformed colleagues, and you had the privilege of 
being a young captain JAG officer, I presume, in the general 
counsel's office. Is that correct?
    Mr. Remy. Yes, I was in the honors programs in the general 
counsel's office, Senator Reed.
    Senator Reed. We have found out that the best source of 
advice, particularly with respect to these issues of compliance 
with the Geneva Convention, has been from uniformed officers, 
who raised the cry very early and who consistently were, I 
think, principal critics of some of the policies.
    This is less a question and more a comment. I hope you, as 
a former uniformed JAG, recognize the real skill and talent and 
experience of those uniformed officers you will serve with.
    Mr. Remy. I absolutely do, Senator Reed.
    Senator Reed. Well, thank you very much.
    I will refrain from asking the question who your favorite 
boss is, Ms. King. [Laughter.]
    I will just simply say I neglected to indicate for the 
record that Liz is a graduate of the University of Pennsylvania 
and Georgetown Law School.
    So, good luck. Thank you all for your commitment to the 
Country and your service.
    Chairman Levin. Thank you, Senator Reed.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you very much.
    I want to congratulate all of the nominees and your 
families and wish you the very best as you undertake your 
service. Thank you for undertaking the service.
    I want to begin with Governor Mabus and Mr. Work and ask a 
question of both of you. Since 1952, there have been aircraft 
carriers based in two different homeports on the east coast of 
the United States. The USS Tarawa was homeported in Mayport in 
1952, and ever since that time, we have had that kind of a 
dispersal policy.
    Admiral Mullen, Chief of Naval Operations (CNO), before 
this committee stated that he was very supportive of strategic 
dispersal of our carrier force. His predecessor, Admiral Vern 
Clark, also stated on February 2005, and I quote, it is his 
belief that, ``It would be a serious strategic mistake to have 
all of those key assets of our Navy tied up in one port.''
    Secretary England, who was Secretary of the Navy before he 
was Deputy Secretary, also stated in this committee that, in 
his judgment, dispersion was still a situation. A nuclear 
carrier should be in Florida to replace the USS John F. Kennedy 
to get some dispersion.
    Even more recently, Secretary Donald Winter, with the 
concurrence of the current CNO, Admiral Gary Roughead, signed 
the record of decision to upgrade Mayport to be nuclear ready, 
continuing the Navy's 54-year commitment of east coast 
strategic dispersal.
    My question to both of you is would you let us know, today, 
what your intentions are with regards to the strategic 
dispersal of the Nation's nuclear aircraft carriers along the 
east coast? Would you tell us whether you agree or disagree 
with the prior three CNOs on their recommendations that there 
should be strategic dispersal of the nuclear carrier force?
    Ambassador Mabus. Senator, I understand this issue and its 
importance. I also understand that this issue has been put into 
the Quadrennial Defense Review (QDR). If confirmed, I expect to 
be an active member of that review, and I commit to making this 
a priority item if confirmed as Secretary.
    Senator Martinez. I need an answer to my question, though.
    Ambassador Mabus. Sir, I simply do not have enough 
information to give you an answer in terms of what the final 
outcome should be.
    Senator Martinez. You would not disagree with three CNOs 
that all have indicated in their opinion the importance of 
strategic dispersal of the nuclear fleet, though, would you 
not?
    Ambassador Mabus. Again, Senator, I do not have the 
information, as I am sitting here today, to give you an answer 
on that, except to acknowledge that I do understand that is 
their position.
    Senator Martinez. Mr. Work?
    Mr. Work. Senator, we haven't had an opportunity to talk 
with the former CNOs. As the Governor has said, this is an 
issue that has been briefed to us at the broadest level, and I 
look forward, if confirmed, to working with DOD and the 
Secretary of Defense to look at this issue again in the 2009 
QDR.
    Senator Martinez. There is also an issue of funding. A 
decision was made, and that decision, to my knowledge, was 
final in deciding that there would be strategic dispersal and 
that Mayport would become a homeport. You both are aware of 
that decision having been made, correct, by the prior Secretary 
of the Navy and right up the chain of command?
    As a result of that decision, there was some work that 
needed to be done. We have had an environmental impact 
statement that has all gone through the process, a prior QDR. 
As I say, this is a decision that goes back to when Vern Clark, 
Admiral Clark, was the CNO.
    Do you foresee supporting the continuation of the work that 
is already in the pipeline, including dredging and other 
improvements to Mayport that would make it capable of 
homeporting a nuclear carrier?
    Ambassador Mabus. Senator, I believe that the two items 
that you mentioned, one is the dredging and second the pier 
upgrade and repair in Mayport, have been recommended by the 
Secretary of Defense to be included in the President's budget 
for this year. As the President's nominee and reporting 
directly to the Secretary of Defense, of course, I support 
their recommendations.
    Senator Martinez. Mr. Work?
    Mr. Work. Senator, I agree with exactly what Governor Mabus 
said. As we understand it, the record of decision was made at 
the Department of the Navy in early January, and DOD reviewed 
that decision. Secretary Gates decided to delay or to look at 
the decision as part of the 2009 QDR, but to continue the work 
that Governor Mabus referred to, which would not pre-close any 
option after the 2009 QDR.
    Senator Martinez. The Navy has a goal and a plan to have a 
313 ship fleet. Do you have an opinion on that issue and how we 
should get there?
    Ambassador Mabus. Senator, this is another issue that the 
313 ship fleet came out of the QDR 4 years ago. It was the best 
estimate at the time of what the Navy combatant needs would be 
going forward. There is another QDR underway right now, and I 
know that the size of the fleet is one of the critical parts of 
that QDR.
    I will, if confirmed, be a very active participant, and 
this will be one of the areas that I concentrate on to make 
sure that the size of the fleet is adequate and matches up with 
the requirements that we have and will give the Navy in terms 
of what its mission is both today and in the future.
    Senator Martinez. Mr. Remy, I want to ask a question of 
you, and I think it is, frankly, one of candor. I want to 
suggest to you that I think it is important to have good 
communication with the committee and to be clear.
    I have looked at your resume, and I find it astonishing 
that you do not list your employer for a number of years. I 
can't even see the number of years because also your resume 
does not state when you began and when you ended your 
employment with what you describe as ``a major U.S. company.''
    Now I know by description and also what Senator McCain said 
that it appears to have been Fannie Mae, but you don't disclose 
that or the years that you were at Fannie Mae. Am I correct 
that it is Fannie Mae that you were employed by before you were 
at Latham & Watkins?
    Mr. Remy. Yes, Senator. Yes, Senator.
    Senator Martinez. When did you go to work there, and how 
long did you work there?
    Mr. Remy. Senator, I worked at Fannie Mae from the years of 
2000 through 2006.
    Senator Martinez. To my knowledge, there is nothing wrong 
with having done that, and I think it should be on your resume 
clearly stated for all to see. Although there has been some 
controversy with the company, I know a lot of honorable people 
who have worked there, and I just don't think it is appropriate 
not to disclose it clearly.
    Mr. Remy. Senator Martinez, you are right. I have nothing 
to hide. I did disclose my employment at Fannie Mae on a number 
of forms that I filed with the committee. I have many different 
versions of my biography. The version that apparently made it 
to this committee did not include Fannie Mae as my employer, 
although it did have the responsibilities that I had undertaken 
at Fannie Mae at the time.
    That was a mistake. I take responsibility for that bio 
coming to the committee. Indeed, my time at Fannie Mae was a 
time period where I am personally proud of all of the work that 
I did at Fannie Mae. Some shameful things may have happened 
there, but I have nothing to hide from my responsibilities.
    Senator Martinez. I don't disagree with that at all, 
particularly from the timeframe you describe and the 
responsibilities that appears that you held there. So I wasn't 
trying to imply anything other than I think it is important to 
speak with candor to the committee when you are up for 
nomination, and that is my only point. I appreciate your 
explanation.
    I wish you all well, and thank you very much.
    Mr. Remy. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Martinez.
    I concur. I think we all would concur with your point that 
there is nothing to be ashamed of. In any event, it should be 
fully disclosed, and apparently, it was on a number of your 
other bios. It was stated more generically you worked for a 
major company, I gather, in terms of the bio that came to us, 
as you indicated.
    I am not familiar offhand with that bio. But apparently, 
that is what happened. You have acknowledged it, and I think 
that Senator Martinez's point is a good one, and you agree with 
it that.
    Mr. Remy. Yes, I do. Thank you, Mr. Chairman.
    Chairman Levin. There may be questions for the record on 
that, as Senator McCain suggested. If there are, we will try to 
get them to you quickly, and you can then answer them promptly 
as well as to specifically what those duties were.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to begin by thanking each of you on the first 
panel for your dedicated public service and your desire to 
serve our Nation in these very important leadership roles. I 
also want to add my welcome to your families and your 
supporters who are here with you this morning.
    If confirmed, each of you will face, without question, 
enormous challenges in DOD. You will be charged with forming a 
comprehensive national security strategy to address today's 
crises while planning for a complex and uncertain future for 
our Nation. I would say that, with your backgrounds and 
expertise, I feel each of you are well qualified to handle 
these challenges that you will face.
    I have been a strong advocate of our military readiness, 
military presence, and our military engagements around the 
world. We cannot overstate the importance of our work.
    With the recent activities we have witnessed from China and 
North Korea, it is obvious that the challenges are many. I want 
to pose this question to Governor Mabus and to tell you at the 
outset that I feel that the men and women of the Pacific 
Command have maintained a remarkable level of stability, but we 
must ensure that they are properly manned and equipped to 
address possible future conflicts that are part of our 
challenges.
    I also wanted to mention that I feel that Admiral Keating 
has done a tremendous job. He is helping to maintain the 
stability with the forces that are there in the Pacific.
    I am particularly interested in readiness. The question I 
ask of you, Governor, is what thoughts do you have on the 
overall readiness of the naval fleet in our country and, in 
particular, in the Pacific Command as it relates to the 
military personnel and available equipment?
    Ambassador Mabus. Senator, at this point in the process, I 
do not have enough information to give you a definitive answer 
on that except to say that the readiness of the fleet in 
performing the mission that the Country has given it is of 
highest importance and that, if confirmed, it will be one of 
the things that will occupy my time more than any other.
    Senator Akaka. Governor, you and I know that readiness is 
so important to our military.
    Ambassador Mabus. Absolutely, Senator.
    Senator Akaka. Training and taking care of personnel, 
including the care of families, are part of the importance of 
readiness, and I look forward to continuing to work with you, 
if confirmed, in this area.
    Mr. Work, I have been really concerned about the position 
of CMO of Defense and, in this case, of the Navy. The 
Government Accountability Office (GAO) has reported that the 
Navy has not yet followed DOD's lead in establishing a template 
to address business transformation. As Navy CMO, it is critical 
that you establish performance goals and measures for improving 
the efficiency and effectiveness of the Navy.
    My question to you is what is your understanding of the 
roles and responsibility of the CMO?
    Mr. Work. Senator, the CMO is responsible to the Secretary 
of the Navy for the efficient business processes throughout the 
department. For the last couple years, the Department of the 
Navy hasn't had an Under Secretary, and as I understand it, the 
CMO slot was delegated to the Assistant Secretary of the Navy 
for Financial Management and the Comptroller. The Department of 
the Navy also set up an Office of Business Transformation, as 
required by the legislation.
    If confirmed, one of my top priorities will be to find out 
exactly what these offices and people have done and to work 
very closely with the committee to understand exactly what the 
intent of the legislation is and to work with the Secretary and 
the Deputy Secretary to have a very, very good CMO operation.
    Senator Akaka. Ms. King, I am so glad to see you moving 
into this area in Defense and look upon your move as one that 
will help our cause, both Defense and the Congress, because of 
your work here, your relationships, and your understanding of 
what needs to be done to carry out the goals that we have.
    My simple question to you, with all of your experience, is 
what do you intend to do that may be different in bringing 
about a relationship of partnership as well as integrating our 
working processes between Congress and DOD?
    Ms. King. Senator Akaka, if I am confirmed, what I would 
like to do is to make sure that the Congress and DOD see the 
relationship as not adversarial, but as working together toward 
a common goal and to review the processes and the communication 
to make sure that we are working toward one goal instead of 
against each other.
    Senator Akaka. I am asking that because I am chairman of 
the Veterans Affairs Committee here in the Senate, and what we 
have done in the last 3 years has been to try to create what we 
call a ``seamless order'' between Defense and Veterans Affairs. 
This has been working out well.
    Ms. King. Yes.
    Senator Akaka. So that both deputies are talking to each 
other once a week, and it is amazing what we have been able to 
do by phone. I hope this can grow and continue as we move along 
here.
    Ms. King. I plan to keep that model going.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    To all of the nominees here today, congratulations for 
being here. I look forward to hearing more of your testimony 
and also to meet your families that are with you.
    One of the questions I have is to Governor Mabus and to Mr. 
Work. Unmanned aerial vehicles have proven to be a critical 
resource in Iraq and Afghanistan, and the unmanned ground 
vehicles have also proven to be an important and growing tool 
to support our military personnel. Although still in an earlier 
stage, the Navy's development of unmanned underwater vehicles 
is also important.
    What is your perspective on the role of unmanned systems 
for the Navy and the Marine Corps, and what do you see as the 
focus areas for the Navy and the Marine Corps for the 
development, training, and deployment of these vehicles?
    Ambassador Mabus. Senator, Secretary Gates, in his 
recommendations as we move forward, was to put a great deal of 
emphasis on these unmanned vehicles. In terms of the Navy, my 
level of knowledge there is simply to say that I understand the 
importance of these and that I know, going forward, the Navy 
and Marine Corps have to look into unmanned vehicles to perform 
some critical tasks. I will make sure that the research, the 
development, and the technology is there and is adequately 
analyzed and, if we move into an acquisition phase, adequately 
contracted in a way that is cost efficient and makes sure that 
our sailors and our marines get the very best equipment 
possible.
    If confirmed, this will be an area that I look forward to 
working on to make sure that this new cutting-edge technology 
makes it to the fleet.
    Mr. Work. Senator Hagan, I believe we are on the cusp of a 
revolution in unmanned technologies. The last years of war have 
really shown how these different systems can help both the 
Marine Corps and the Navy. The Navy is about to commission a 
class of ships, the Littoral Combat Ships, which is 
specifically designed to employ unmanned systems.
    I agree with Governor Mabus that this is an extremely high 
priority for the Department. If confirmed, I look forward to 
trying to populate more of these systems throughout the Navy 
and the Marine Corps.
    Senator Hagan. Thank you.
    Another question I have concerns piracy. I think the media 
is focusing so much on the piracy off the coast of Somalia and 
some of the other areas in the world. Piracy is certainly 
increasingly becoming a strategic threat to the U.S. and our 
partners in the Asian Gulf. I think key to combating this 
threat is to encourage partnership capacity and 
interoperability with the regional navies in the area.
    What is your view of countering piracy, and how will you 
encourage other navies to contribute to maritime security, such 
as the Combined Task Force (CTF)-150 and CTF-151?
    Ambassador Mabus. Senator, the whole country is so proud of 
the SEALs, the sailors, the marines that took part in the 
operation a couple of weeks ago that ended so successfully. But 
as you correctly point out, it is going to take a lot more to 
combat this problem, particularly in that part of the world.
    If confirmed, one of my jobs as Secretary of the Navy will 
be to ensure that we have the vessels, the people, and the 
equipment to be able to carry out whatever missions are given 
by the combat commanders against those pirates. I think it is 
particularly important what you brought out about partnering 
with other countries.
    The Navy now has the Africa partnership to partner with the 
navies and the countries along the coast of Africa, both east 
and west coasts, to encourage interoperability, to do training, 
to do combined exercises and also humanitarian efforts in those 
countries. Because one of the quotes from the National Maritime 
Strategy that the CNO, the Commandant of the Marines, and the 
Commandant of the Coast Guard released says that while people 
and equipment can be surged, trust cannot, and that you have to 
work for a long time to establish that trust and that operating 
together.
    I think that the Navy, from my information, has made a good 
start there but it is going to have to be very vigilant and 
work with the navies and the governments in that region to take 
on this problem.
    Senator Hagan. Mr. Work?
    Mr. Work. Senator, piracy is an issue that has been around 
for ages, centuries. It is not only a problem on the sea, but 
it also emanates from the land.
    So the Navy can do its part in areas where piracy is a big 
problem by working with other nations. I would note that even 
the Chinese have dispatched ships to fight this problem. But 
ultimately, it will require a solution both on the land and at 
sea to deny these pirates the ungoverned spaces where they 
operate.
    Senator Hagan. I had one further question on our wounded 
warriors. Certainly, I know that it is of prime importance, and 
certainly, it is important for the families, sustaining the 
welfare for our sailors and marines. But can you give me any 
thoughts on how you emphasize within the branch what you need 
to be doing in any different way or to continue the treatment 
for our wounded warriors?
    Ambassador Mabus. Senator, there is no higher priority, if 
confirmed, that I will have than to care for these men and 
women who have represented us so well and who have paid so 
dearly in this country's defense.
    Whether it is in their healthcare, their mental healthcare, 
the assistance to families, the reintegration either into their 
units or back to their hometowns, the continuing healthcare, 
the continuing care for them and their families, we have no 
higher duty as a country. If confirmed, I will have no higher 
priority as Secretary of the Navy.
    Mr. Work. Senator, I believe both the Navy's Safe Harbor 
program and the Marine Corps Wounded Warrior Regiment are 
extremely well run. As Governor Mabus said, if confirmed, I 
look forward to working with the Secretary to make sure that 
this is a world-class operation as we take care of our wounded 
heroes.
    I agree with the Governor that there is no higher priority 
in the Department to take care of our sailors and marines who 
have given so much.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Welcome to our nominees. I continue to be extremely 
impressed with the very high caliber of individuals President 
Obama has nominated to run the essential portions of our 
Government. This panel is no less, Mr. Chairman. Quite an 
impressive panel.
    The President and I agree that we need dedicated leadership 
to run the affairs of our Government. The Nation is looking for 
you nominees to play a role in the redirection of our efforts 
to benefit and protect all of our citizens, especially those 
who were ignored as a result of the previous policies.
    I have office calls scheduled, I think, with several of you 
and look forward to these nominees moving quickly as we work on 
this ambitious agenda that we have also undertaken. There is an 
opportunity for us, in partnership with you nominees, to cause 
a real change in our Nation, and I look forward to the mutual 
cooperation to the benefit of this great Nation.
    Mr. Chairman, there is a relationship here with each one of 
these nominees. Mr. Work, I understand that you are a graduate 
of the University of Illinois.
    Mr. Work. I am, sir. Go Illini.
    Senator Burris. Yes, Go Illini. Okay. I am a Saluki. But 
you are from Illinois. That will help.
    To Ms. King, who has the same name as my chief of staff, 
and I just wondered whether or not there was some relationship 
there.
    Ms. King. We have looked, but no.
    Senator Burris. Yes, she told me that you all are just 
``play cousins.'' So that is what we call it. But they have the 
same name. So Brady has already briefed me in terms of your 
skills on the Hill and what you will do as the nominee.
    Of course, Mr. Remy is distinguished being a Howard Law 
graduate. What is your class, Mr. Remy?
    Mr. Remy. 1991.
    Senator Burris. 1991 is a recent class. How about the class 
of 1963? [Laughter.]
    Mr. Remy. Go Bison.
    Senator Burris. Go Bison.
    I saved the best for last. This young man here who is going 
to be our Secretary of the Navy was the State auditor of the 
great State of Mississippi when I was State comptroller, and we 
worked very closely together in upholding our responsibility 
for our States. But not only that, he advanced to the great 
position of Governor of the great State of Mississippi.
    We kind of shocked the people in my State capital when I 
was being honored, Mr. Chairman, for 10 years in public 
service. We brought in the guest speaker of our banquet, the 
Governor of the State of Mississippi, to Springfield, IL, to be 
the guest speaker to honor the State comptroller for 10 years. 
Of course, that kind of sent a message to a lot of people in my 
capital that there was something going on.
    This was in the mid-1980s, and Governor Mabus was very, 
very supportive. Not only that, Governor, you may remember when 
my wife, who hails from Mississippi, from the great Delta part 
of Itta Bena, where Mississippi Valley State is, and I visited 
you at the Governor's mansion. It was the first time in her 
lifetime she had a chance to go in the Governor's mansion in 
the State of Mississippi.
    Ray, you are a tribute to the people of your State. I just 
noticed how you had bipartisan support. I didn't think that 
those two Senators would come and support you like that, but 
evidently you have made your record in the State of 
Mississippi, and they are very proud of you. I know you will 
maintain that record as Secretary of the Navy. I am very 
pleased to be with you.
    Just one quick question, Governor. Are you familiar with 
the contract that the Navy is putting out to a company called 
Boeing for the F-18 fighter that is going to replace five 
various Navy planes that are on the ships? I think the Navy has 
requested some 39 of them, but they only budgeted for 31.
    I wondered if you wouldn't look into that, should you be 
confirmed--and I know you will have a vote here. But look into 
the facts so we can make sure that we are getting an adequate 
supply of those F-18 and those Super Hornets that the Navy will 
need. Have you had any chance to look into any of that?
    Ambassador Mabus. Senator, I know that Secretary Gates' 
recommendation going forward is to acquire 31 of the Super 
Hornets, 9 tactical fighters, the E/F series, and the other 
planes to be the G series, the Growler series of that plane. 
His recommendation also was to have 24 planes each of the F-18 
E/F series in the next 2 years.
    But in specific answer to your question, yes, I will look 
into that if I am confirmed.
    Senator Burris. Second, Governor, I was listening to your 
answer and lost my train of thought. Oh, wow. I can't pull it 
back.
    Chairman Levin. Perhaps you could just submit that question 
for the record.
    Senator Burris. Yes, I will submit that question for the 
record because it had to do with the follow-up on, oh, I know 
what it is. It is the single-year contract. The company Boeing 
is seeking a 2-year contract on those F-18s, and they put that 
line up. That line now has to come down.
    Boeing hired a lot of people from across the river, and the 
plant is in St. Louis. But a lot of Illinoisans work in that 
Boeing factory, and I wondered if you would look at, when you 
get there, whether or not that could be a 2-year contract with 
you and Secretary Gates rather than the 1-year contract?
    Ambassador Mabus. Yes, sir.
    Senator Burris. Okay, thank you. That was my point.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Burris.
    Senator Begich is next.
    Senator Begich. Thank you very much, Mr. Chairman.
    I have very few questions. But first, Elizabeth, thank you 
for taking the time and meeting with me. It sounds like a 
breath of fresh air in the communication that you are going to 
bring to the Senate. So I appreciate that, as a new member 
here, and I look forward to working with you.
    I want to follow up on Senator Hagan's questions, if I 
could, to Governor Mabus and Mr. Work in regards to the 
pirates. It seems to be a continued growing problem not only 
here, but also in the Pacific and the Pacific Rim. How do you 
see or do you see a more aggressive role by the United States 
in dealing with the pirates?
    Ambassador Mabus. Senator, I think that the administration 
has talked about a much more comprehensive approach toward 
piracy and that you cannot simply deal with the pirates at sea. 
You have to deal with where they come from, with the states on 
the land.
    One of the reasons that there has been more success against 
piracy in places like the Straits of Malacca is that you have 
governments and states ashore that are willing to use their law 
enforcement tools and techniques against pirates when they come 
back to their home bases. You simply don't have that situation 
in Somalia right now. You have a state that has no government 
that can do anything like that.
    I know that the President and Secretary Clinton have talked 
about a far more comprehensive strategy in dealing with them 
and that, if confirmed, I look forward to making sure that the 
Navy has the equipment and has the people to carry out whatever 
missions the President and the combatant commanders give them 
in terms of whatever strategy we pursue.
    Senator Begich. If I could follow-up? Again, you may not be 
able to fully answer this, but are we going to be in a 
situation where we are waiting for the on-land situation to get 
resolved or at least become more conducive to dealing with 
this?
    Somalia has not been the most stable country for many, many 
years, but yet the piracy has continued to grow and become more 
aggressive in the last few years. I guess I am a little more 
direct in how to deal with it, and I think what the SEALs did 
was the right thing to do in the sense of sending a message.
    How do you see this process moving forward? I recognize 
there is a lot of discussion, but Somalia is not necessarily 
the place that is going to end up first out to solve this 
problem, unless I am missing something. I am new here, though.
    Ambassador Mabus. Well, sir, at this point in my process, 
and I am very new.
    Senator Begich. We share that.
    Ambassador Mabus. I have not been given what exactly our 
strategy is against these pirates, and I know it is a matter of 
intense concern. The things I said about the President and 
Secretary Clinton in terms of dealing with it are things they 
have said publicly. But I know that it will be something that I 
will be intently concerned with should I be confirmed to this 
job.
    Senator Begich. Thank you.
    I am assuming because one of the pieces of the puzzle will 
be if there is more intensity from us, the Navy will have to 
have the proper equipment, the right kind of ships that can 
move and be mobile and be able to deal with the issue.
    Ambassador Mabus. Yes, sir.
    Senator Begich. Is that part of the equation?
    Ambassador Mabus. Yes, sir.
    Senator Begich. Mr. Work, do you want to add to that?
    Mr. Work. Simply, Senator, that there are two different 
ways or two complementary ways to deal with this problem. One 
is through law enforcement, using the U.S. Coast Guard 
following up on Suppression of Unlawful Acts Against the Safey 
of Maritime Navigation. Kenya, for example, is just about ready 
to prosecute one of the first piracy cases because they are a 
signatory, as are we.
    The Coast Guard operates under use of force rules, and the 
Navy would operate under rules of engagement (ROE). So, if 
confirmed, I think it would be very, very critical for the 
naval commanders to understand the ROE and to be given all of 
the support they need to accomplish the mission.
    Senator Begich. Very good.
    Last totally different area. We are going to go north now 
because I am from Alaska. I know the Coast Guard has a lot of 
comment regarding the Arctic, what the future is, and what the 
role they might have there.
    Do you from the Navy, from either one of you, have any 
comment in where you see the long-term role and participation 
in the future of Arctic policy and how the Navy may or may not 
participate up there?
    Ambassador Mabus. In the National Maritime Strategy that 
was put out by the CNO, the Commandant of the Marine Corps, and 
the Commandant of the Coast Guard, one of the major areas that 
they saw our naval forces participating in is climate change 
and persistent presence in places all around the world to meet 
whatever either potential adversaries that we have or natural 
conditions that may be changing or needs attention. Our naval 
forces are uniquely positioned to be able to provide a lot of 
the information and a lot of the presence in those areas.
    Senator Begich. So I think, yes, the Arctic is important?
    Ambassador Mabus. A much better answer than I just gave. 
Yes.
    Senator Begich. I understand.
    Mr. Work, do you have any additional comments?
    Mr. Work. If the Northwest Passage opens up year round, it 
will fundamentally change trade routes and also passage of 
warships to the north. The Coast Guard obviously will have a 
prime role in supporting our interests up there. But if the 
northwest passage opens year round, the U.S. Navy would 
obviously find this area a very, very important operational 
focus.
    Senator Begich. Thank you very much.
    I will end there, Mr. Chairman. I would just say again, as 
Senator Burris said earlier and others have said, the President 
has continued to bring folks forward for confirmation, 
especially to this committee that I have a role in, that are an 
impressive group of folks with wide ranges of experience and 
the knowledge to bring to the table.
    I congratulate you, and I wish your families the best 
because you will need a lot of support going through this 
process that I hope ends in a positive in the sense of 
confirmation of all of you. But also once you are in service, 
the service that will be required of you and your families.
    So thank you very much for your willingness to serve.
    Senator Reed [presiding]. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    First, just a follow-up on a couple of things that Senator 
Begich just said. I am of the view that on this piracy issue, 
we are making it far too complicated. The policies, in terms of 
the violation of international law, have been around for a long 
time. If you shoot the people who do it and blow up their 
boats, they won't be back.
    I would like to respond just a bit to what Senator Martinez 
said on this Mayport issue. I know you all are kind of in the 
barrel on this during your confirmation hearings. But I can 
remember when I was Assistant Secretary of Defense, and we had 
big push on strategic homeporting when John Lehman was 
Secretary of the Navy. Any logical proposition can be carried 
to an extreme. That is why you need to measure these things 
through risk assessment and other ways.
    Actually, there was a big push at that time in the name of 
strategic homeporting to put homeporting in Alaska. Senator 
Stevens was a great advocate of that, and there actually was a 
plan in place at one point.
    With respect to the names that Senator Martinez brought 
forward in terms of people who support the idea of strategic 
dispersal, I don't think there is anybody who disagrees with 
the notion that properly constructed and properly analyzed, 
there ought to be strategic dispersal. But I will tell you two 
former Secretaries of the Navy who certainly don't believe that 
applies to the situation we are talking about with moving a 
carrier from Virginia to Mayport, and that is Senator John 
Warner and myself. If I were a Senator from Nebraska, I would 
be saying the same thing.
    I am not going to pose this to you directly, Governor 
Mabus, today because I am aware that the Deputy Secretary of 
Defense has already made a commitment to bring this issue up to 
the Office of the Secretary of Defense (OSD) level and to 
examine it in the next QDR. But for the record, there has never 
been a nuclear aircraft carrier in Mayport. You can check the 
data on that. There have been carriers. There has never been a 
nuclear aircraft carrier in Mayport.
    The number of aircraft carriers from the time that I was 
Secretary of the Navy even then, and I say ``even'' because, as 
I was saying to you yesterday, there were 930 ships in the 
United States Navy when I was commissioned in 1968. But even 
when I was Secretary of the Navy in the 1980s, there were 15 
carriers, and it was a different situation than there is today.
    We have a commitment from OSD on this. The preliminary work 
that has been authorized or that we have been informed will 
take place, the dredging and the improvement of the pierside, I 
am not going to oppose that. I believe, in fact, that it 
alleviates a lot of the concerns about possibly having a second 
place for a carrier to go in terms of an emergency. But I would 
say very strongly that this issue is going to be debated, and I 
want it to be debated properly.
    I want it to be debated on issues of our national strategy 
and the assets that we have available to solve problems. When 
the Navy comes in here, as they did last year, and said they 
got $4.6 billion in unfunded priorities--requirements, not 
priorities--requirements. Unfunded requirements, and then they 
turn around and say they want another $1 billion to do this, I 
think they have gone from the area of ``need to have'' to the 
area of ``nice to have.'' There are a lot of places you can 
take $1 billion and do some good for the United States Navy.
    Mr. Work, you are uniquely qualified to address that issue. 
I am going to get back to that in minute.
    Before I ask a question of you, Governor Mabus, I would 
like to say something to Ms. King. I would hope in the spirit 
of bringing DOD and this panel into harmony that you will take 
a look at this 60-day rule.
    When we have people come up here and testify and we ask 
questions, and their response basically is, ``Well, we will get 
back to you with a written answer.'' In too many cases and, 
frankly, particularly with the Army, this has been used as a 
way to sort of roll issues that are kind of hot-button issue 
now and kind of get them off the radar screen.
    I hope that you will look at that 60-day period as sort of 
the floor rather than the regular process, particularly when 
there are issues that come before us that are time sensitive.
    Ms. King. I will, Senator.
    Senator Webb. Thank you.
    Governor, I would like to say, first of all, I think you 
bring a great set of qualifications to the job, a very unique 
set of qualifications having been Governor, having been an 
Ambassador, having served on active duty, and having been a 
businessman.
    I would say to you, as someone who has spent 5 years in the 
Pentagon, been around the military all my life, who loves the 
military, who also believes the military sometimes needs tough 
love, that I hope that once you assume your position here, you 
will resist the notion to get on an airplane and go say ``hi'' 
around the world, which is what they are going to ask you to 
do, and really get your arms around the need for strong 
civilian leadership in the Department of the Navy.
    I would like to give you an example here and ask for you to 
bring us your ideas in terms of management policies that might 
fix it. About a year and a half ago, I read in the Wall Street 
Journal that Blackwater, which now has a new name, I think it 
is Xe, was building a facility and had something like a tens-
of-million-dollar project in San Diego to train active duty 
sailors how to tactically deal with a presence on their ship.
    The first thing that struck me about that was that why, 6 
years then after September 11, were we asking civilian 
contractors to teach our military people how to perform 
military functions? It would be like when I was in Quantico as 
a marine having Blackwater coming and teaching me how to 
patrol.
    So I started asking questions about this. The city of San 
Diego was opposing this facility. That is how it ended up in 
the Wall Street Journal. But I started asking questions about 
how did this project get authorized? Had it ever come before 
this committee? Was it specifically before the Appropriations 
Committee? How do these things happen?
    The end result of it was that there was a block of money 
that had moved forward from the Appropriations Committee, 
Operation and Maintenance money, from which the Department of 
the Navy decided that to service the ``needs of the fleet,'' 
they would make this contract with Blackwater. In other words, 
it wasn't an authorized program. It simply emanated from a 
locality in the Navy.
    As I asked further questions, it turned out that from the 
information that I was given, a Senior Executive in the Navy 
one level up from the program authorizer could make this 
decision on up to an amount of $78.5 million without even the 
approval of the Secretary of the Navy.
    Now I think, as someone who has a lot of experience in 
business and management, you would probably find that as 
disconcerting as I did?
    Ambassador Mabus. Yes, sir.
    Senator Webb. Here is what I would ask. I would like to 
send you this packet and just get you to put a management check 
on it, if you would. Maybe we can discuss it or maybe I can 
just get your reaction in terms of management policies for 
these sorts of things that are happening inside the Department 
of the Navy?
    Ambassador Mabus. I will be very happy to do that.
    Senator Webb. Thank you very much.
    Mr. Work, you are a lucky man because my time just ran out. 
[Laughter.]
    Senator Reed. Senator Nelson.
    Senator Bill Nelson. Ms. King, you have worked for Senator 
Reed, and you know the process up here. I think the words of 
Senator Webb are well spoken about making sure that DOD is 
getting back to us. They haven't in the past.
    Ms. King. I understand.
    Senator Bill Nelson. It is another way of rope-a-doping. We 
are so busy around here that we are not all the time checking 
every day to see that DOD is responding. So, thank you. You are 
uniquely qualified for this.
    Because Mayport has been brought up as an issue here, I am 
compelled to recall for the record the long history of 
commentary and testimony that has been made to this committee. 
This past January 14, the Navy issued its record of decision to 
have a homeport for a nuclear aircraft carrier at Mayport. It, 
by the way, was replacing another aircraft carrier, the John F. 
Kennedy, a conventional carrier, that had been homeported 
there, and back in the 1980s, there were two aircraft carriers.
    The Atlantic fleet has historically been spread at least 
over two ports. In the Pacific, we know there are three 
homeports of which the six carriers stationed in the Pacific 
are spread.
    In its record of decision just a couple of months ago, the 
record of decision said, ``The most significant strategic 
advantage offered by the development of an additional east 
coast nuclear-powered aircraft carrier (CVN) homeport is a 
hedge against a catastrophic event that may impact Naval 
Station Norfolk, the only existing CVN homeport for the 
Atlantic fleet CVNs of which there are five that are homeported 
of the now six CVNs, the most recent having just been 
commissioned, the George H.W. Bush.''
    Furthermore, the Navy stated in that record of decision, 
``Neither the Navy nor the Nation nor its citizens can wait for 
a catastrophic event to occur before recognizing the potential 
impacts of such an event. This lesson was learned all too well 
in the aftermaths of the recent catastrophic events, such as 
Hurricane Katrina. The Navy recognized its responsibility to 
develop a hedge against such an event.''
    Thus, according to the Navy, and I continue to read from 
the record of decision, ``The decision to create the capacity 
to homeport a CVN at Naval Station Mayport represents the best 
military judgment of the Navy's leadership regarding strategic 
considerations.''
    They determined that, ``The cost of developing a CVN 
homeport at Naval Station Mayport is more than offset by the 
added security for CVN assets and enhanced operational 
effectiveness provided by the ability to operate out of two 
homeports.''
    Those are not my words. That is the Navy's words in their 
decision to have a homeport for a nuclear carrier.
    Mr. Chairman, I ask that the Navy's record of decision be 
entered into this committee record.
    Chairman Levin [presiding]. It will be at this point.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. Now, needless to say, the Secretary of 
the Navy and the CNO, Admiral Roughead, clearly understood also 
the lessons of Pearl Harbor. Admiral Kimmel, a four-star 
admiral, the head of the Pacific fleet, allowed those 
battleships to be all collected up, and it was just 
serendipitous that our carriers had left port when the Japanese 
struck.
    Admiral Kimmel was relieved of his command. He was forced 
to retire, and he was stripped of two of his four stars. His 
family, over the last half-century, have tried to have that 
case reviewed and stars reinstated, and the Navy has refused in 
large part because of the lesson that we must always remember.
    So the Navy's decision to make Naval Station Mayport a 
homeport to a nuclear aircraft carrier is consistent with 
senior DOD and Navy leadership, including the following 
instances that have been well chronicled in this record of this 
committee.
    In the additional views, we have cited, for example, the 
former CNO Admiral Vern Clark told the Armed Services Committee 
in February 2005 that, in his view, ``Overcentralization of the 
carrier port structure is not a good strategic move. The Navy 
should have two carrier-capable homeports on each coast.''
    Admiral Clark went on to say, ``It is my belief that it 
would be a serious strategic mistake to have all of those key 
assets of our Navy tied up in one port.''
    In March 2006, Deputy Secretary of Defense and the former 
Secretary of the Navy Gordon England testified to this 
committee that the Navy needed to disperse its Atlantic Coast 
carriers, saying, ``My judgment is that dispersion is still the 
situation. A nuclear carrier should be in Florida to 
replace''--to replace--``the USS John F. Kennedy to get some 
dispersion.''
    Secretary England explained that, ``The concern was there 
always will be weapons of mass destruction. Even though 
carriers were at sea, the maintenance facilities, et cetera, 
are still there, and the crews. So having some dispersion would 
be of value to the Department of the Navy.''
    At the same hearing, the Vice Chairman of the Joint Chiefs 
of Staff Admiral Edmund Giambastiani shared his own judgment 
that we should disperse our carriers. He illustrated his sense 
of risk to the Nation's east coast carriers when he recalled 
his own visit to Norfolk one Christmas where, ``We had five 
aircraft carriers, all sitting one next to each other, and that 
is not something that we should routinely do.''
    Mr. Chairman, I would like to enter into the record a 
photograph as recent as 1997 of five aircraft carriers all 
docked, side by side, at the Naval Station Norfolk. I would 
also like to enter into the record a chart prepared by the 
Department of the Navy of the number of times that two, three, 
four, five and, when you include across the river in the dry 
dock, six aircraft carriers have been located at Norfolk and 
the number of days in that particular calendar year going back 
for a couple of decades.
    Chairman Levin. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    This updated chart reflects the addition of carriers located at 
Hampton Roads area shipyards. This data does not include new 
construction carriers prior to commissioning.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. Then, on July 31, 2007, before this 
committee, when asked whether he agreed that it is in our 
national interest to ensure that we maintain two nuclear 
carrier ports on the east coast of the United States and in the 
principle of strategic dispersal, the Chairman of the Joint 
Chiefs of Staff Admiral Mike Mullen stated, ``I am, Senator, 
and I am on the record more than once for this, very supportive 
of strategic dispersal of our carriers.''
    On December 18, 2008, Secretary Gates wrote to Senator Webb 
and to Senator Warner, two former Secretaries of the Navy, as 
Senator Webb has pointed out, but also the two Senators from 
Virginia. Secretary Gates wrote of the Navy's decision, wrote 
to those two Senators, ``Based foremost on strategic 
considerations, the CNO recommended and after thorough 
consideration of the Environmental Impact Statement, estimated 
cost of implementation, and strategic laydown and dispersal, 
Secretary Winter concluded that homeporting a CVN at Naval 
Station Mayport best supports the Navy's mission and is 
critical to our naval security interest.''
    That is from a letter from Secretary Gates. He continued, 
``There is significant national security value in establishing 
an additional east coast CVN support base.'' Secretary of 
Defense Gates wrote, ``Having a single CVN homeport has not 
been considered acceptable on the west coast and should not be 
considered acceptable on the east coast.''
    Mr. Chairman, I ask that that letter be entered in the 
record.
    Chairman Levin. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. Well, then, as Senator Webb has 
stated, on 10 April 2009, DOD announced their intent to review 
the Navy's homeporting decision in the QDR. Now both of you, I 
think, have stated for the record that you intend to play a 
major participatory role in the QDR. Is that correct?
    Ambassador Mabus. If confirmed, that is correct, Senator.
    Mr. Work. Yes, sir.
    Senator Bill Nelson. What weight would you share with the 
committee that you would give to the professional military 
judgments of the Chairman of the Joint Chiefs, the CNO, 
Admirals Mullen and Roughead?
    Ambassador Mabus. Senator, I think that at this stage of my 
process and at the fact that this decision has been put in the 
QDR, that I should say that I understand the issue. I 
understand its importance. I understand the expressions of the 
decisions on both sides of the issue and that I look forward to 
delving into the details of this issue so that a fair and 
equitable decision can be made coming out of the QDR.
    Senator Bill Nelson. All right. I understand how you are 
constrained at this point. I appreciate that. It is a delicate 
situation. You are a great public servant, and you are going to 
be a great Secretary of the Navy.
    One other fact has come to my attention that when you 
consider what we expect to be the DOD request on the funding 
for the long-lead items, which is the dredging of the channel--
it has been filling up--back down to the depth that will 
accommodate a nuclear aircraft carrier, and it had been dredged 
to a similar depth when the John F. Kennedy was coming and 
going up through 2007.
    We expect there to be the request as well on the 
improvements to the pier, which is also a long-lead item and of 
which Senator Webb said he is not going to oppose those funding 
requests. However, it has come to my attention that the Navy 
engineers must have military construction funding this year if 
there is to be no delay in implementing the Navy's decision.
    Secretary Lynn has assured us that the QDR review would not 
cause a delay to the Navy. Since the QDR would be decided in 
the coming months, that would seem to be the case, and that is 
what he has committed to us.
    Now the concern is that there may not be the request in the 
funding for the design funding, and that is a long-lead item, 
too. So I would ask you, as the new Secretary of the Navy, if 
you would go and speak to your superiors that within that 
funding there should be the provisions for the design funding 
so that there is, in fact, what has been committed without 
delay, instead of it being pushed off again?
    Ambassador Mabus. Yes, sir. I will investigate that 
particular issue.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Now I was not planning on a second round, but I think 
Senator Webb has his hand up.
    Senator Webb. Yes, briefly, Mr. Chairman, since my 
colleague took well over his 8 minutes and in lieu of a second 
round, I would just like to reiterate a few points that I made 
on this before, that it is properly before the OSD to be looked 
at in terms of strategic viability.
    I would like also, since my friend from Florida has put all 
these documents into the committee hearing, we did a 21-page 
assessment of the Navy's proposal. It was written largely by 
Gordon Peterson on my staff, a 30-year naval officer. I would 
ask that be submitted and included in the record as well.
    Chairman Levin. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. Okay. Thank you, Mr. Chairman.
    Senator Bill Nelson. Mr. Chairman, I would ask, in 
addition, I already requested that the chart be entered as well 
as the two photographs in the record, along with the record of 
decision, and the Secretary of Defense's letter to Senator 
Webb, December 18, 2008. That identical letter was sent to 
Senator Warner, the then-senior Senator of Virginia.
    I also have additional views that I had submitted back in 
2007 to the National Defense Authorization Act for 2007.
    [Additional views from Senator Bill Nelson follow:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. Mr. Chairman, perhaps we could----
    Senator McCain. Mr. Chairman, could I ask the indulgence of 
my friend? I can see we are in a discussion that will probably 
go on for a long time and will probably be the subject of a 
markup. I would remind my colleagues we do have other nominees 
that have been waiting patiently. I hope we could move on here 
pretty quick.
    Thank you, Mr. Chairman.
    Chairman Levin. I am, unless there is additional need for 
questions, going to excuse this panel.
    Senator Reed. Senator Udall?
    Chairman Levin. No, I checked with Senator Udall. Thank 
you, Senator Reed, for pointing that out. I did check with 
Senator Udall, and he indicated he did not need to ask 
questions of this panel. We appreciate that.
    We will now excuse the panel. However, Mr. Remy, following 
a request here, if you could provide promptly for the record a 
detailed description of your duties--and, again, this is for 
the record--at Fannie Mae and whether you were aware of any of 
the activities which contributed to the mortgage crisis that 
has emerged. If you could do that promptly, we would appreciate 
it.
    Mr. Remy. Yes, Mr. Chairman.
    [Statement and updated biography from Mr. Remy for the 
record follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Now, without objection, we will excuse this 
panel with thanks to you and your families.
    We won't break here. We will just ask for people to move 
quickly out and in. [Pause.]
    Okay, everybody. Thank you for the quick turnaround time 
here. We are going to first ask Senator Webb if he would make 
his introduction, and then I will be calling on the other 
nominees.
    Senator Webb.

  STATEMENT OF HON. JIM WEBB, U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Webb. Thank you, Mr. Chairman.
    I would like to say it is a great privilege and a pleasure 
for me to introduce General Gregson to this panel and to 
express my support for his confirmation.
    I have known General Gregson since we were both 18 years 
old, which, when you get to be our age, is a long time. I would 
like to put an anecdote out here just to explain my view of why 
I respect his service so much.
    In February 1968, during the Tet Offensive, we had service 
selection at the Naval Academy. This was the first time that 
there was----
    Chairman Levin. Senator, I hate to interrupt you, but we 
want to be able to hear this. Could we ask the folks in the 
back of the room to please be very quiet?
    Could the folks in the back of the room please be quiet 
while they are exiting? Thank you.
    Senator Webb?
    Senator Webb. Thank you, Mr. Chairman.
    Just to start again on this, in February 1968, during the 
Tet Offensive, we had our service selection at the Naval 
Academy. I was one of six battalion Marine Corps coordinators 
trying to figure out which of the midshipmen would volunteer to 
go into the Marine Corps. We had a 10 percent quota. Watching 
the Tet Offensive on television, we were probably the only 
class in modern Naval Academy history that did not make its 
Marine Corps quota.
    In my battalion, I had 22 midshipmen who said they were 
going to go into the Marine Corps, and on service selection 
night, half of them, for whatever reasons, made another 
decision. It was a very bad time for our country. It was a very 
bad time for the Marine Corps, which lost more than 100,000 
killed or wounded in Vietnam.
    Of the six Marine Corps coordinators, five of them were 
infantry officers. They received nine Purple Hearts, and one 
was killed in action.
    The interesting thing about that evening for me, which I 
will never forget, is that Chip Gregson for 4 years at the 
Naval Academy kept a destroyer model on his desk. We all 
thought he was going to be a surface warfare guy. When he 
looked at what was happening during Tet in 1968, he came down 
and signed up for the Marine Corps. He moved toward the sound 
of the guns.
    He served in Vietnam with the 1st Reconnaissance Battalion, 
was wounded, and received a Bronze Star for heroism. He went on 
to a very distinguished career in the Marine Corps as an 
intellectual and as a combat leader. He has commanded at every 
level. He has spent years in Asia, in Japan, and at Okinawa. At 
the same time, he was a fellow over in the Brookings 
Institution and worked in the Pentagon in policy positions.
    I can't think of a better person to take over the enormous 
responsibilities that he is about to assume. I normally do not 
introduce people on the committees on which I sit, but in this 
particular case, I am very pleased to recommend General Gregson 
to this committee.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    That is an extraordinary introduction, and I know how much 
we appreciate it and how much General Gregson appreciates it.
    The other members of the panel are the following: Dr. 
Michael Nacht. Am I pronouncing your name correctly?
    Dr. Nacht. Yes, Senator.
    Chairman Levin. Currently a professor of public policy at 
the Goldman School of Public Policy at the University of 
California, Berkeley. Dr. Nacht served as a member of the U.S. 
Department of Defense Threat Reduction Advisory Committee for 
which he chaired panels on counterterrorism and 
counterproliferation of weapons of mass destruction.
    He is also a consultant for Sandia National Labs and 
Lawrence Livermore National Laboratory. From 1994 to 1997, Dr. 
Nacht was Assistant Director for Strategic and Eurasian Affairs 
at the Arms Control and Disarmament Agency. Last, but far from 
least, I believe you have a son who resides in Ann Arbor, my 
home State.
    Dr. Nacht. Correct.
    Chairman Levin. That can only help you. [Laughter.]
    [Senator Feinstein's statement in support of Dr. Nacht 
follows:]
             Prepared Statement by Senator Diane Feinstein
    Thank you Mr. Chairman and Senator McCain for the opportunity to 
introduce and support a distinguished public servant, Dr. Michael 
Nacht, during the committee's consideration of his nomination to be 
Assistant Secretary of Defense for Global Strategic Affairs.
    Dr. Nacht has a Bachelor's of Science degree in Aeronautics and 
Astronautics from New York University. He also holds four advanced 
degrees, including a Master's of Science in Operations Research from 
New York University, a Master's in Statistics from Case Western Reserve 
University, a Master's in Political Science from the New School for 
Social Research, and a Doctorate in Political Science from Columbia 
University.
    He began his impressive career as a NASA missile aerodynamicist at 
the John Glenn Center in Cleveland, OH, working on the early lunar 
probe launch vehicles.
    Later, he served as an Associate Professor of Public Policy, 
Associate Director of the Center for Science and International Affairs, 
and Acting Director of the U.S.-Japan Program at Harvard University and 
then as a professor and Dean at the University of Maryland School of 
Public Affairs.
    During his time at the University of Maryland, Dr. Nacht took leave 
to serve as Assistant Director for Strategic and Eurasian Affairs of 
the U.S. Arms Control and Disarmament Agency, where he led the Agency's 
work on nuclear arms and missile defense negotiations with Russia and 
the opening of a nuclear arms dialogue with China.
    During that time, Dr. Nacht participated in five summit meetings 
for President Clinton: four with Russian President Yeltsin and one with 
Chinese President Jiang Zemin and he received the Agency's 
Distinguished Honor Award--its highest form of recognition.
    From 2001-2004, Dr. Nacht chaired panels of the Defense Threat 
Reduction Agency's Threat Reduction Advisory Committee on countering 
weapons of mass destruction and terrorism.
    Dr. Nacht is a member of the Council on Foreign Relations and the 
International Institute for Strategic Studies. He also is the author or 
co-author of 5 books and more than 100 articles on U.S. national 
security policy, including nuclear weapons issues, missile defense, the 
proliferation of weapons of mass destruction, and homeland security.
    Currently, Dr. Nacht is a Professor at the University of 
California, Berkeley's Goldman School of Public Policy and was the Dean 
of the School from 1998 to 2008. As a graduate of U.C. Berkeley's rival 
school, Stanford University, Dr. Nacht knows that I have especially 
high standards for those associated with my alma mater's rival across 
the San Francisco Bay.
    Mr. Chairman, I can think of few people with a better set of skills 
and experiences to serve as Assistant Secretary for Global Strategic 
Affairs.
    With negotiations underway on a new Strategic Arms Reduction Treaty 
this year, his expertise in the area of nuclear arms reductions should 
be especially welcome and beneficial as the administration works to 
make the threat of nuclear weapons a thing of the past.
    I am pleased to offer my wholehearted support for his nomination, 
and I look forward to working with Dr. Nacht on nuclear policy, cyber 
security, and countering weapons of mass destruction--all of which are 
long-held interests of mine.
    Should he be confirmed, I believe Dr. Nacht will serve with 
distinction, and the United States will be safer as a result.
    Thank you Mr. Chairman.

    Chairman Levin. Lieutenant General Wallace Gregson, U.S. 
Marine Corps retired, has been a foreign policy and military 
affairs consultant for WCG & Associates International since 
2006. He has been beautifully introduced by Senator Webb, and I 
don't think I could possibly add anything to that introduction. 
So I am not going to try.
    Jo-Ellen Darcy is the senior environmental advisor to the 
Senate Finance Committee. She was given a wonderful 
introduction by Senator Baucus.
    I will put my additional comments about her in the record, 
except to say that she worked on water issues for our Governor 
Jim Blanchard of Michigan both in Lansing and Washington and 
also has a master's of science degree in resource development 
from Michigan State University. The rest I will put in the 
record, but nothing better can be said than what I just added.
    Dr. Ines Triay, did I pronounce your name correctly?
    Dr. Triay. Mr. Chairman, it is pronounced ``Tree-iy.''
    Chairman Levin. Triay, and Dr. Triay, you spent most of 
your career in service to the Department of Energy (DOE) from 
your days as a scientist at Los Alamos Laboratory, and 
continuing as a career Federal employee, you have held a 
variety of senior scientific and management positions. You are 
presently Principal Deputy Assistant Secretary of Energy with 
responsibility for the DOE's Environmental Management Program.
    Your experience in that position, your deep commitment to 
the cleanup program will help ensure that the program is very 
well managed and technically sound. We are delighted that you 
have been nominated as well.
    [Senator Udall's statement in support of Dr. Triay 
follows:]
                Prepared Statement by Senator Tom Udall
    Chairman Levin and Ranking Member McCain, thank you for the 
opportunity to make this statement in support of Dr. Ines Triay, 
President Obama's nominee for Assistant Secretary of the Department of 
Energy. I had the pleasure of introducing Dr. Triay at her confirmation 
hearing at the Senate Energy and Natural Resources Committee.
    Dr. Ines Triay is an extremely qualified scientist with a Ph.D. in 
physical chemistry from the University of Miami. She spent much of her 
successful career in New Mexico, first at Los Alamos National Lab, and 
next as the head of the Carlsbad Field Office, before serving in the 
Department's leadership in Washington, DC.
    She is a strong role model and her career is a shining example for 
aspiring young scientists, particularly women and Hispanics.
    She has devoted her career to the safe cleanup of the environmental 
legacy of the Nation's Cold War nuclear weapon production. This is the 
largest and complex environmental cleanup program in history, with more 
than 100 sites in more than 30 states.
    I have witnessed Dr. Triay's work in New Mexico and attest to its 
quality.
    Dr. Triay is able to handle both the difficult scientific issues 
and the critical public health issues involved in these clean-ups. 
During her tenure at DOE, Dr. Triay has tackled some of the Nation's 
most difficult clean-up challenges, including completing cleanup in 
Rocky Flats, Colorado.
    She also played an instrumental role in ensuring that transuranic 
waste disposal operations at the Department's Waste Isolation Pilot 
Plant in New Mexico are safe and secure.
    Mr. Chairman, there is no scientist better qualified to be 
Assistant Secretary of the Office of Environmental Management at DOE. I 
hope you will join me in supporting Dr. Triay for this position.
    Thank you, Mr. Chairman.

    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    We will now hear from our second panel of witnesses.
    Dr. Michael Nacht is currently Professor of Public Policy and 
former Aaron Wildavsky Dean at the Goldman School of Public Policy at 
the University of California--Berkeley. Dr. Nacht served as a member of 
the U.S. Department of Defense Threat Reduction Advisory Committee, for 
which he chaired panels on counterterrorism and counterproliferation of 
weapons of mass destruction. He has also consulted for Sandia National 
Laboratories and Lawrence Livermore National Laboratory. From 1994-
1997, Dr. Nacht was assistant director for Strategic and Eurasian 
Affairs at the Arms Control and Disarmament Agency. Dr. Nacht, I 
believe you have a son who resides in Ann Arbor, is that correct?
    Lieutenant General Wallace C. Gregson, USMC (ret.), has been a 
foreign policy and military affairs consultant for WCG & Associates 
International since 2006. Previously he served as Chief Operating 
Officer for the United States Olympic Committee. This service followed 
a 37-year career in the Marine Corps, where his final assignment was as 
Commanding General of the Marine Corps Forces Pacific and Marine Corps 
Forces Central Command, where he led and managed over 70,000 marines 
and sailors in the Middle East, Afghanistan, East Africa, Asia and the 
United States.
    Dr. Nacht and General Gregson come to the DOD policy arena with a 
wealth of experience that will be very helpful as the President and 
Secretary Gates seek to shape the agenda for the new administration. 
Dr. Nacht and General Gregson, we look forward to having your steady 
hands in place in helping to guide this process.
    Ms. Jo-Ellen Darcy is the Senior Environmental Advisor to the 
Senate Finance Committee, responsible for environment, conservation and 
energy issues. Previously, she was Senior Policy Advisor to the Senate 
Environment and Public Works Committee, concentrating on fish and 
wildlife issues, the Army Corps of Engineers, nominations, and a 
variety of conservation and water issues. She worked on water resources 
issues for Governor Jim Blanchard of Michigan in both Lansing and 
Washington, DC. She has another connection to Michigan, a Master of 
Science degree in resource development from Michigan State University. 
Ms. Darcy, your wealth of experience here in Congress should help you 
lead the Army Civil Works organization effectively.
    Dr. Ines Triay has spent most of her career in service to the 
Department of Energy, from her days as a scientist at Los Alamos 
Laboratory and continuing as a career Federal employee, she has held a 
variety of senior scientific and management positions. She is presently 
the Principal Deputy Assistant Secretary of Energy with responsibility 
for DOE's Environmental Management Program. Her experience in that 
position and her deep commitment to the cleanup program should help to 
ensure that it is well managed and technically sound.

    Chairman Levin. Now I am going to ask you standard 
questions that you can all answer together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [All four witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All four witnesses answered in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All four witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All four witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All four witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify upon 
request before this committee?
    [All four witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee or to consult with 
the committee regarding the basis for any good faith delay or 
denial in providing such documents?
    [All four witnesses answered in the affirmative.]
    Okay. I think we are going to call first on Dr. Nacht.

    STATEMENT OF DR. MICHAEL NACHT, NOMINEE TO BE ASSISTANT 
       SECRETARY OF DEFENSE FOR GLOBAL STRATEGIC AFFAIRS

    Dr. Nacht. Mr. Chairman, Senator McCain, members of the 
committee, it is an honor to come before you as President 
Obama's nominee to be Assistant Secretary of Defense for Global 
Strategic Affairs.
    I wish to thank President Obama, Secretary Gates, and Under 
Secretary Flournoy for their support of my nomination.
    Let me say a few words about my family. For their 
unswerving love and support, I want to foremost acknowledge my 
wife, Marjorie Jo, my partner of 45 years; my son Alexander and 
his wife, Maria, of New York; my son David and daughter-in-law, 
Alicia, who, as the chairman has acknowledged, are residents of 
Ann Arbor, Michigan; and our loving grandchildren Joshua, 
Benjamin, Julian, and a fourth on the way. I am delighted that 
my son Alexander could be with us today.
    I also wish to cite the contributions to our Nation of my 
wife's family in national security. Her dad, Walter Seltzer, 
now deceased, won the Silver Star with Oak Leaf Cluster, the 
Bronze Star, and the Purple Heart at the Battle of the Bulge in 
World War II.
    Her cousin, Major Stephen Nurenberg, U.S. Army, is 
currently in Iraq with the Joint Task Force while stationed at 
Fort Eustis, VA. Another cousin, Michael Nurenberg, a member of 
the Virginia National Guard, was previously in the 3rd Ranger 
Battalion in Afghanistan.
    Senators, I have twice served full time in Government, 
first, as a NASA missile aerodynamicist in the early days of 
the space program, and, more recently, as a nuclear arms and 
missile defense negotiator in the Clinton administration, for 
which I received unanimous U.S. Senate confirmation.
    After September 11, as the chairman has noted, I had the 
privilege to be asked by General Larry Welch, former U.S. Air 
Force Chief of Staff, to chair two panels of the Threat 
Reduction Advisory Committee of the Defense Threat Reduction 
Agency on counterterrorism and counterproliferation of weapons 
of mass destruction.
    If confirmed, I would be honored to return to public 
service to contribute to our Nation's security. I would make 
every effort to meet the challenges posed by the array of 
issues in global strategic affairs.
    I pledge to work closely with this committee and other 
committees of Congress on each of these challenges, and I would 
like to thank the members of the committee for your 
consideration of my nomination.
    Chairman Levin. Thank you, Dr. Nacht.
    General Gregson?

   STATEMENT OF WALLACE C. GREGSON, NOMINEE TO BE ASSISTANT 
  SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS

    General Gregson. Mr. Chairman, Senator McCain, members of 
the committee, thank you for the opportunity to appear before 
you this morning.
    I would like also to thank Senator Webb for his most 
gracious introduction.
    I am honored and grateful that the Secretary of Defense 
recommended me, and the President has chosen to nominate me, 
for Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    My wife, Cindy, whose patience and understanding have made 
this possible, is here today. Our oldest son is working in 
Boston and unable to attend. Our youngest son is serving with 
the marines in Iraq and, similarly, unable to attend.
    We have both urgent challenges and important opportunities 
in the Asian and Pacific region. If confirmed, I am eager to 
lend my efforts to meeting our national security goals.
    Thank you.
    Chairman Levin. Thank you very much, General Gregson.
    Ms. Darcy?

STATEMENT OF JO-ELLEN DARCY, NOMINEE TO BE ASSISTANT SECRETARY 
                  OF THE ARMY FOR CIVIL WORKS

    Ms. Darcy. Thank you, Chairman Levin, Senator McCain, and 
members of the committee. Thank you for holding this hearing 
today so promptly after the announcement of our nominations.
    It is my honor and privilege to be here today as President 
Obama's nominee to be Assistant Secretary of the Army for Civil 
Works. I am here today because of my experience with the Corps 
and its mission, and I am also here because of the love and 
support of my family and my friends.
    I would like to introduce my family. My mom, Jean, couldn't 
be here today or my brother Richard, and I know that my father 
is looking down from on high. But I would like to introduce my 
three sisters, Bonnie Darcy Waldman, Pam Farentino, and Dr. 
Margie Darcy. My cousin Sarah Lord is here, as well as my long-
time friend Jean Antonucci.
    I have several friends and colleagues here also today, and 
I would like to thank them for their support and their guidance 
over the years.
    My experience as a Senate staffer for the last 16 years, 
and my time working for the Governor of Michigan on Great Lakes 
issues, has given me the opportunity to work with the Corps of 
Engineers on realizing project goals and on developing the 
policies that guide the Corps' mission.
    In addition to firsthand knowledge of the complexity and 
importance of the Corps' responsibilities, my experience has 
given me great respect for the outstanding men and women of the 
Corps, who serve the Corps and serve this Country. The Corps 
has, throughout its history, marshaled expertise and ingenuity 
to serve the changing needs of a growing Nation.
    If confirmed, I look forward to building on that tradition 
of rising to new challenges to meet the Nation's needs in the 
21st century.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions.
    Chairman Levin. Thank you, Ms. Darcy.
    Dr. Triay?

    STATEMENT OF DR. INES R. TRIAY, NOMINEE TO BE ASSISTANT 
        SECRETARY OF ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Dr. Triay. Mr. Chairman, Senator McCain, members of the 
committee, it is a great honor to appear before you today as 
President Obama's nominee to be the Assistant Secretary for 
Environmental Management at the DOE.
    I thank President Obama and Secretary Chu for their 
confidence. I also thank the committee for considering my 
nomination.
    I would like to introduce my husband, Dr. John Hall, who 
has been my friend, my partner, and my inspiration for over 20 
years, and his parents, Mr. and Mrs. Harvey Hall, who are also 
here with me today.
    In 1961, when my parents fled Cuba's Communist regime and 
went into exile with a 3-year-old daughter and nothing but 
their dreams for a better life and their love for freedom, it 
would have been impossible to believe that their daughter would 
ever be nominated by the President of the United States to 
serve this great country.
    My parents and I are proud to be naturalized citizens of 
the United States and are humbled by the honor of my being here 
today. The pride that we feel has only served to deepen the 
great love that we have for this country and the admiration and 
respect that we have for the American people.
    That a girl born in Cuba was welcomed in Puerto Rico; 
encouraged to study math and science; received a Ph.D. in 
chemistry at the University of Miami in Florida; was recruited 
by Los Alamos National Laboratory and mentored by giants in the 
field of nuclear science; was asked to direct the beginning of 
the operational phase of the waste isolation pilot plant, the 
only nuclear waste repository of its kind in the world; was 
promoted to the top career position in the DOE's Environmental 
Management Program, the most complex nuclear cleanup in the 
world; and is now being nominated to direct that cleanup is 
something that only happens in America.
    Mr. Chairman, if I am confirmed to this position, I will 
work closely with you and with all of Congress to address the 
many local, State, regional, and national issues that we face 
within the Environmental Management Program. I commit to 
informing and consulting with Congress, the tribal nations, the 
State, our regulators, our stakeholders, and individual 
concerned citizens.
    As I address you today, I want to affirm my commitment to 
safety, the safety of our workers, the safety of the public, 
and the safety of our environment. Safe operations and cleanup 
is our ever-present and ultimate goal.
    I come before you today with a unique understanding of the 
complexity and magnitude of the task that we face. I have 
firsthand experience in every aspect of environmental 
management and have dedicated my life to the successful cleanup 
of the environmental legacy of the Cold War.
    While we have made significant progress in the 
Environmental Management Program, I recognize the enormity of 
the remaining effort and the technical challenges that we face. 
I am eager to use science and technology, robust project 
management, and our intergovernmental partnerships to reduce 
the cost and schedule of the remaining program.
    As the committee is aware, the Environmental Management 
Program has come under considerable criticism for the execution 
of its projects. Under my leadership as acting Assistant 
Secretary, aggressive efforts are underway to transform the 
Environmental Management Program into a best-in-class project 
management organization.
    I commit to you that if I am confirmed, I will work 
tirelessly to make this effort successful and to continue to 
improve the Environmental Management Program. I have a long 
history of demanding excellence from my team. Nothing less than 
performance that results in delivering our projects on time and 
within cost will be acceptable from the environmental 
management Federal team and our contractors.
    Should I be confirmed, I will use every tool to ensure the 
successful performance of the environmental management mission. 
Relentless focus on performance, utilization of science and 
technology, staff professionalism and competency, transparency, 
and accountability--these will be the cornerstones of my tenure 
if I am confirmed.
    Mr. Chairman, members of the committee, I would be honored 
to serve this great country that I so deeply love. As a Latina, 
I embrace the responsibility of excelling and, if confirmed, I 
will do everything in my power to meet your highest 
expectations.
    I would be pleased to answer your questions.
    [The prepared statement of Dr. Triay follows:]
                Prepared Statement by Dr. Ines R. Triay
    Good morning, Mr. Chairman, Senator McCain, members of the 
committee.
    It is a great honor to appear before you today as President Obama's 
nominee to be the Assistant Secretary for Environmental Management at 
the United States Department of Energy. I thank Secretary Chu and 
President Obama for their support and confidence in recommending and 
nominating me. I also thank the committee for considering my 
nomination. I would like to introduce my husband of 24 years, Dr. John 
Hall, and his parents Mr. and Mrs. Harvey Hall, who are with me here 
today.
    In 1961, when my parents fled Cuba's Communist regime and went into 
exile with a 3-year-old daughter and nothing but their dreams for a 
better life and their love for freedom, it would have been impossible 
to believe that their daughter would ever be nominated by the President 
of the United States to serve this great country. My parents and I are 
proud to be naturalized citizens of the United States of America and 
are humbled by the honor of my being here today. The pride that we feel 
has only served to deepen the great love that we have for this country 
and the admiration and respect that we have for the American people.
    That a girl born in Cuba was welcomed in Puerto Rico; encouraged to 
study math and science; received a Ph.D. in Chemistry at the University 
of Miami in Florida; was recruited by Los Alamos National Laboratory in 
New Mexico and mentored by giants in the field of nuclear science; was 
asked to direct the beginning of the operational phase of the Waste 
Isolation Pilot Plant in Carlsbad, NM, the only nuclear waste 
repository of its kind in the world; was promoted to the top career 
position in the Department of Energy's Environmental Management 
program, the most complex nuclear cleanup in the world; and is now 
being recommended by a Nobel laureate, Secretary Chu, and nominated by 
President Obama to direct that cleanup is something that only happens 
in the United States of America.
    Mr. Chairman, if I am confirmed to this position, I will work 
closely with you and with all of Congress to address the many local, 
State, regional and national issues that we face within the 
Environmental Management program.
    As I address you today, I want to affirm my commitment to safety--
the safety of our workers, the safety of the public, the safety of our 
site communities and our stakeholders and the safety of our 
environment. Safe operations and cleanup is our ever present and 
ultimate goal.
    I come before you today with a unique understanding of the 
complexity and magnitude of the task that we face in the Environmental 
Management program. I have first-hand experience in every aspect of 
environmental management and I have dedicated my life to the successful 
cleanup of the environmental legacy of the Cold War.
    While we have made significant progress in the Environmental 
Management program, I recognize the enormity of the remaining effort 
and the technical challenges that we face. I am eager to use science 
and technology, robust project management, and our intergovernmental 
partnerships to reduce the cost and schedule of the remaining program.
    As the committee is aware, the Environmental Management program has 
come under considerable criticism over the years in the execution of 
its projects. We must strengthen our project management capability and 
improve the skill set of our project management teams. Under my 
leadership as Acting Assistant Secretary, aggressive efforts are 
underway to transform the Environmental Management program into a 
``best-in-class'' project management organization. We are implementing 
processes and procedures for quality assurance and for identifying and 
managing project risks. I commit to you that if I am confirmed, I will 
work tirelessly to make these efforts successful and to continue to 
improve the Environmental Management program.
    I would like to thank Congress for including $6 billion in the 
American Recovery and Reinvestment Act for the Environmental Management 
program. This funding will save and create jobs quickly for shovel-
ready work that is essential to our strategic objective to reduce the 
footprint of the legacy cleanup complex. Footprint reduction can be 
accomplished by focusing cleanup activities on decontamination and 
demolition of excess contaminated facilities, soil and groundwater 
remediation, and solid waste disposition, all of which have proven 
technologies and an established regulatory framework. In addition to 
creating jobs, the Recovery Act funding will accelerate protection of 
human health and the environment at these sites. I recognize that 
disciplined management and oversight of these funds will be critical to 
our success. I pledge to work with other offices in the Energy 
Department and Congress to ensure that we meet this challenge.
    I would like to end my testimony by reaffirming my commitment to 
the safety of our staff and contractors, to the safety of the 
communities and stakeholders at our sites and to the protection of our 
environment. I commit to informing and consulting with Congress, the 
tribal nations, the States, our regulators, our stakeholders and 
individual concerned citizens.
    I have a long history of demanding excellence from my team. Nothing 
less than performance that results in delivering our projects on time 
and within cost will be acceptable from the Environmental Management 
Federal team and our contractors. Should I be confirmed, I will use 
every available tool to ensure the successful performance of the 
Environmental Management mission, relentless focus on performance, 
utilization of science and technology, hard work, staff professionalism 
and competency, transparency, and accountability. These would be the 
cornerstones of my tenure if I am confirmed.
    Mr. Chairman, members of the committee, I would be honored to serve 
this country that I so deeply love. As a Latina executive and 
scientist, I embrace the responsibility of excelling, and, if 
confirmed, I will do everything in my power to meet your highest 
expectations. It is an honor to testify before you today. I would be 
pleased to answer your questions.

    Chairman Levin. Thank you very much, Doctor.
    Let us try 8 minutes for questions and see if we can finish 
in time for the vote at noon.
    Dr. Nacht, first, one of the most significant policies for 
which you are going to be responsible is the nuclear posture 
review, and you are going to be leading that review for the 
Under Secretary of Defense for Policy, as I understand it.
    Balancing near-term deterrence requirements while seeking 
to achieve the elimination of nuclear weapons is, to put it 
mildly, a challenge. I am wondering how you see that process 
working on a practical basis?
    Dr. Nacht. Thank you, Senator.
    Yes, the nuclear posture review policy process has begun. I 
don't know all the details, but it is a rather elaborate 
process that involves all the key stakeholders, including U.S. 
Strategic Command, the National Nuclear Security Administration 
(NNSA) and DOE, Department of State, and others.
    I will co-chair and lead key aspects of this review, 
reporting to Under Secretary Flournoy. I think it is on a 
pretty fast track, but yet I intend to be very comprehensive.
    It is the first nuclear posture review since the Bush 
administration's activities in 2002, and we know that, I 
believe, there was no declassified version of that report 
produced, and we are going to try very hard to produce a 
declassified as well as a classified report. So I will play a 
significant role in that process.
    Chairman Levin. General, on the question of U.S. assistance 
to Pakistan, I have a couple of questions. This assistance can 
only be effective if Pakistan's leadership at all levels comes 
to believe that violent extremists in Pakistan pose the 
greatest threat to Pakistan's survival, not India.
    Otherwise, the United States is simply going to be 
misjudged. If we just pour money into there without the 
government of Pakistan understanding or agreeing that its 
principal threat is the threat of extremists, we would be 
perceived as trying to buy their support for our goals rather 
than supporting Pakistan in their efforts to confront the 
existential threat to Pakistan represented by those extremists.
    There has been a proposal now by the administration to 
provide military and development assistance to Pakistan as part 
of its new strategy. There is a request for $400 million to 
establish a Pakistan counterinsurgency contingency fund to 
train and equip the Pakistan Frontier Corps and to provide 
counterinsurgency training to the Pakistan army. The Kerry-
Lugar bill (S. 962) would provide $1.5 billion a year for 5 
years to build democratic and economic institutions in 
Pakistan.
    Would you agree, General, that the government of Pakistan 
needs to make the case publicly that the single-greatest threat 
to their security is posed by the militant extremists that 
spread out from the border area and that the Pakistan army 
should redirect its main focus to countering that threat?
    General Gregson. Mr. Chairman, I would certainly agree that 
Pakistan is in significant difficulty. They need to recognize 
that the extremism is an existential threat, and the resources 
that we provide to Pakistan need to be directed toward 
alleviating that specific threat.
    Chairman Levin. General, in your opinion, to what extent is 
an improvement in Pakistan-India relations a prerequisite for 
successfully stabilizing the security situation in Pakistan 
itself?
    General Gregson. Pakistan and India have had difficult 
relations for the history of Pakistan. We need to work with 
Pakistan, India, and with other countries across the region to 
decrease any of the tensions that distract from our effort 
against the extremists.
    Chairman Levin. There is a program in Afghanistan, General, 
called the National Solidarity Program. You and I have spoken 
about this in my office. Both General Petraeus and Under 
Secretary of Defense Flournoy have expressed strong support for 
this program.
    It works through locally elected village councils. It 
empowers the Afghan people to set out their own development 
priorities. It also supplies small amounts of money, up to 
$60,000 per village, so that the project that they select can 
be built or adopted.
    I am hoping that, after your confirmation, you will become 
familiar with the National Solidarity Program and the community 
development councils that they have established in over 21,000 
villages and localities in Afghanistan as a way of bringing 
some kind of grassroots decisionmaking, as well as grassroots 
selected development to Afghanistan. Can you do that?
    General Gregson. Yes, sir. I certainly can, and I took the 
liberty of researching that program a bit after I left your 
office. I think it is a wonderful example of bottom-up 
development, and you mentioned that we work on projects that 
they select rather than projects that we select for them; I 
think that approach has a lot of promise.
    Chairman Levin. Then finally, the President has said that 
he supports benchmarks for measuring progress in Afghanistan 
and for promoting accountability. In Iraq, Congress pressed for 
benchmarks, and Prime Minister Maliki and the Iraqi Government 
finally did adopt some goals or milestones to measure progress 
in security and in political reconciliation.
    We didn't invent the benchmarks. These were objectives that 
Iraq itself had set for itself with a timetable for achieving 
the benchmarks. I am wondering, General, whether you will 
support the adoption of benchmarks by the Afghan Government? We 
can have our own benchmarks, obviously, to track this. But most 
importantly, would you encourage the Afghan Government to set 
some benchmarks for their own progress?
    General Gregson. I certainly would. Whether we call them 
benchmarks, measures of effectiveness, or some other term, I 
believe that we need to have a continuous dialogue about 
whether we are accomplishing what we need to accomplish. If 
not, what do we need to change?
    We also need, I think, to be very aware of the fact that 
the situation itself can change and that might change what we 
are trying to do in the normal countermeasure ways that these 
develop. But we need to have a clear understanding not only 
within DOD but, in my mind, across the Government on what it is 
we are trying to do and, more than that, across the 
international coalition.
    Chairman Levin. Okay. Thank you.
    Ms. Darcy, just a question for you about the significant 
backlog of the Corps work. The Harbor Maintenance Trust Fund 
has about $4 billion surplus in it that is growing every year, 
and yet we have all kinds of ports, facilities, waterways, 
small harbors, including harbors in Michigan, that are silting 
due to the Corps saying that they don't have funds available 
for dredging and other operations and maintenance, which is 
critically important to commerce in our harbors.
    The money collected for the Harbor Maintenance Trust Fund 
is intended to maintain harbors and channels. The Corps has 
significant operations and maintenance backlogs, and yet in 
fiscal year 2008, they spent only $766 million in operations 
and maintenance from that trust fund while the tax revenues 
collected were more than twice that amount, $1.6 billion.
    Will you take a look at that issue, particularly take a 
look at the growing backlog that exists in dredging in our 
important harbors, not just in the Great Lakes, but obviously 
representing a Great Lake State, I am keenly aware of the 
importance of that trust fund and the need to keep those 
harbors open. Will you commit to taking a strong look and see 
if we can address those backlogs?
    Ms. Darcy. I will, Senator.
    Chairman Levin. Okay. Thank you. My time is up.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I would tell all the nominees and their families who are 
here, we appreciate their willingness to serve the country.
    General Gregson, in follow-up to Senator Levin's 
questioning, do you believe that we should set benchmarks for 
the progress of Pakistan in their cooperation and assistance in 
addressing the threat that is based in Pakistan to Afghanistan?
    General Gregson. We need to come to an understanding with 
Pakistan.
    Senator McCain. Do you think that we ought to have 
benchmarks for them?
    General Gregson. We certainly should have some measure of 
standards, benchmarks, measure of effectiveness. We need to 
know where we are going and whether we are getting there.
    Senator McCain. Should those benchmarks be included in the 
aid package to Pakistan?
    General Gregson. We need to somehow make sure that the aid 
that we are giving to Pakistan goes to the purpose for----
    Senator McCain. I say with respect, General, it is like you 
either don't wish to answer or have no answer. My question is 
pretty clear. Should those benchmarks be included in any aid 
package to Pakistan?
    General Gregson. Yes, sir. They should.
    Senator McCain. They should in writing. What if the 
Pakistanis don't meet those benchmarks, General?
    General Gregson. If the Pakistanis don't meet those 
benchmarks, then our position and our posture over there and 
our effort becomes even more difficult. I think it is 
absolutely essential that we work with Pakistan to solve the 
problems in Central Asia, and they are all linked together.
    Senator McCain. Thank you, General.
    Could I ask you about North Korea and ask you what do you 
think the state of the situation is vis-a-vis North Korea and 
whether we should resume Six-Party Talks? Do you believe that 
they are willing to resume Six-Party Talks?
    General Gregson. They have indicated most recently that 
they are not willing to resume the Six-Party Talks. I think the 
Six-Party Talks should be resumed. There are elements within 
the Six-Party Talks that help us. The first essential reason is 
to stay in close formation with our two allies over there that 
are most intimately involved with North Korea: Japan and the 
Republic of Korea.
    With the solid foundation from there, if we can find 
matters of common interest to work with Russia and China, that 
is in our favor, and it helps to build confidence in Northeast 
Asia that we are trying to work the issue.
    Senator McCain. Thank you.
    General, I would just like to comment I think it is pretty 
obvious that North Korea has taken actions recently that are 
exactly in the opposite direction: driving out the inspectors, 
saying they are moving forward with development of more nuclear 
weapons, and the recent missile launch, which was more 
successful than the prior ones.
    So, I hope that you will pay some attention to it and close 
attention to events there. I think we are in agreement that 
China plays a key role in whatever cooperation we might lead to 
be expected from them.
    Dr. Triay, have you ever been to Hanford, Washington?
    Dr. Triay. Yes, Senator. I have.
    Senator McCain. You have been? Have you seen the state of 
the cleanup there?
    Dr. Triay. Yes, Senator. I have. I am very familiar with 
the state of the cleanup.
    Senator McCain. What is your assessment of the state of the 
cleanup? The information that we have is it may be 2062 before 
it is cleaned up?
    Dr. Triay. Senator, that is correct. But, as I was saying 
in my testimony, we will use science and technology. We will 
use robust project management in order to bring in the schedule 
as well as reduce the lifecycle cost of that cleanup.
    Senator McCain. Thank you.
    I can't recall the numbers right now for the cost overruns 
over the initial estimates, but they are astronomical. It seems 
to me that a target date of 2062 is not something that we 
should be satisfied with. It took a lot less years than that to 
do the pollution, much less.
    So I hope you will give that a high priority. It has just 
been something I have been concerned about for a long period of 
time.
    Ms. Darcy, do you believe that the Corps of Engineers 
should prioritize projects for authorization?
    Ms. Darcy. No, Senator.
    Senator McCain. You don't?
    Ms. Darcy. No, the current practice of the Corps is to not 
prioritize them for authorization. Once those projects----
    Senator McCain. Do you agree with that?
    Ms. Darcy. I do.
    Senator McCain. Business as usual.
    Dr. Nacht, do you believe we can achieve a world free of 
nuclear weapons?
    Dr. Nacht. I think it is an aspiration, and as President 
Obama said in Prague, something that may not be achieved in his 
lifetime. But it is an aspiration, which will then structure 
some of what we will try to do to change attitudes. Perhaps 
this will lead to reduction in nuclear arsenals, significant 
reduction, and also to dissuasion of others to acquire nuclear 
weapons.
    Senator McCain. Are you optimistic about recent dialogue 
between the United States and Russia?
    Dr. Nacht. I haven't been briefed in detail on this, but 
from the public accounts, the terms were used as a productive 
beginning. I have spent 3 years negotiating with the Russians 
in the START and missile defense area, and I know it is a 
challenging experience.
    But I think, as I understand it, Under Assistant Secretary 
Gottemoeller, we are off to a good start.
    Senator McCain. Have you had a chance to look at the 
proposals that Secretary Gates has made concerning reductions 
in some of our missile defense programs or even elimination?
    Dr. Nacht. I have read some of them. I don't believe the 
department has released a full budget, but I have read some of 
the statements.
    Senator McCain. Well, I was talking specifically about 
missile defense proposals that Secretary Gates has made, which 
are pretty specific. Will you look at those and give us a 
response in writing as to what you feel about those proposals?
    Dr. Nacht. Absolutely.
    [The information referred to follows:]

    Mr. Chairman, Senator McCain, members of the committee, thank you 
for the opportunity to respond to your questions regarding the fiscal 
year 2010 President's budget.
    I have no direct knowledge of the fiscal year 2010 President's 
budget, but it is my understanding that the Secretary made a number of 
adjustments to the ballistic missile program as part of a larger effort 
to rebalance defense capabilities to meet a wide range of military 
challenges in the most affordable manner.
    U.S. missile defense capabilities are designed to defend against 
two broad threats: longer-range ballistic missiles from rogue countries 
that could threaten the United States in the future and regional or 
shorter-range ballistic missiles that threaten our deployed forces and 
friends and allies today.
    The Secretary has decided to restructure the program to focus on 
the rogue state and theater missile threat. He has decided not to 
increase the current number of ground-based interceptors based in 
Alaska as had been planned. DOD will continue to fund robustly 
continued research and development to improve the capability we already 
have to defend against long-range rogue missile threats.
    The Secretary also increased funding for short-and medium-range 
missile defense capabilities, such as Standard Missile-3 and Terminal 
High Altitude Area Defense, which protect our forces and those of our 
allies and friends in theater. The Secretary made the decision to 
rebalance our investments and increase production of these ballistic 
missile defense capabilities.

    Senator McCain. Thank you very much.
    I thank the witnesses for being here and look forward to 
their confirmation.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    My questions are for Ms. Darcy as it relates to water, and 
it won't surprise you, Ms. Darcy, that I want to talk about the 
Missouri River. As you are aware, the GAO, I am sure, did a 
study at the urging of Senator Dorgan earlier this year that 
talked about the decline in the amount of goods being 
transported along the Missouri River.
    Unfortunately, this study did not take into account that 
the navigation season had been severely curtailed by the Corps 
and nor did it take into account the value of the goods that 
are being shipped or the jobs associated with these shipments 
and the impact on Missouri and, in fact, the heartland's 
utilities as it relates to water being used as cooling on four 
major power plants along the river.
    I understand why Senator Dorgan wants the Garrison 
diversion project, but what he is advocating now is a new 
study. Now, what drives me crazy in the Federal Government is 
the money we spend on studies.
    We completed a study that cost $35 million about the river. 
It cost $35 million, and it took 15 years to complete. Now we 
are proposing to do another study.
    Some things aren't going to change. The north is going to 
want more water, and the south is going to fight about it. We 
could study it until the cows come home, but it is not going to 
change reality: whether or not we are going to make sure that 
navigation is still available on the southern portions of the 
river.
    So we were able to get a letter that Senator Dorgan signed 
that said that the Corps should delay this study, even though 
the funding was put into the omnibus appropriations bill, over 
my objection and other Senators' objection. There was an 
agreement reached that Senator Dorgan would ask the Corps, 
along with Senator Bond and me, to not begin this study until 
after October to give us another chance to reach out to 
stakeholders and perhaps have the entire Senate weigh in about 
this.
    We have learned that preliminary work has begun on this 
study, even though a letter was sent to the Corps saying to 
delay the study. I need to ask you today why is preliminary 
work being done on a study that you have been asked to delay? 
Whether or not you are willing to say ``stop it'' until we hear 
back from the Senate after we finish the appropriations process 
this year?
    Ms. Darcy. Senator, because I am not at the Corps yet, my 
only response to you, I think, today can be, if confirmed, I 
would be happy to look into it. I understand the frustration on 
the Missouri River, and I also understand the frustration over 
continuous studies.
    Senator McCaskill. Well, I appreciate that. I don't mean to 
diminish North Dakota, South Dakota, and Montana, but the 
population of Missouri alone exceeds the population of those 
three States. We need that navigation. It is very important to 
the economic health of our State.
    I just have learned the hard way that sometimes this is arm 
wrestling behind doors as it relates to appropriators, and 
there are much bigger policy issues here than who has Senators 
on the Appropriations Committee and who doesn't.
    I just wanted to make sure that, on the record, I got your 
assurances that you were going to go into this with your eyes 
wide open, and I particularly would like, as quickly as 
possible once you are confirmed, some kind of word back to my 
office about not beginning to spend any of the money that has 
been appropriated on this study until after the date of October 
that we asked you to hold off on until you actually begin going 
down that road.
    Ms. Darcy. If confirmed, I most certainly will look at it 
immediately.
    Senator McCaskill. Thank you, and thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator McCain. Could I just ask one more question of Ms. 
Darcy? You are aware of the threats to the Colorado River?
    Ms. Darcy. Yes, I am, Senator.
    Senator McCain. Not only pollution, but lower levels and 
all of those aspects of the issue?
    Ms. Darcy. I am, Senator.
    Senator McCain. How important they are to the west?
    Ms. Darcy. Yes, sir.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    There have been requests for some answers for the record. 
Dr. Nacht, if you can get those in? As soon as you get those 
in, we can then proceed to consider the nomination. There is 
another witness who is going to get us information for the 
record from the earlier panel.
    We are going to move as quickly as we can on these 
nominations. If you could get those answers in today or 
tomorrow, it would be helpful. There is usually, I think, a 48-
hour wait before they go to the floor? Do they still wait 2 
days?
    No limit. Okay. If you could get those answers in promptly, 
we will try to take these nominations up very, very quickly.
    We very much appreciate, as Senator McCain said, not only 
your service, your willingness to serve, but the support of 
your families. It is essential. You know it, and we just want 
them to be understanding that we are grateful to them as well 
as to you.
    We will stand adjourned.
    [Whereupon, at 11:56 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Raymond E. Mabus, 
Jr., by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience with the Department of Defense 
(DOD)?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. If confirmed, I will closely examine Goldwater-Nichols and 
make recommendations for changes to the Secretary of Defense if I deem 
change to be advisable. However, at this time I am not aware of any 
needed modifications.
    Question. Do you believe that the role of the Service Secretaries 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. I am not aware of any need for changes to the roles of the 
Service Secretaries at this time.
                                 duties
    Question. Section 5013 of title 10, U.S.C., establishes the 
responsibilities and authority of the Secretary of the Navy.
    What is your understanding of the duties and functions of the 
Secretary of the Navy?
    Answer. If confirmed as Secretary of the Navy, I will be 
responsible for the responsibilities and authorities in Section 5013 of 
Title 10 for both the U.S. Navy and U.S. Marine Corps.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary Gates would prescribe for you?
    Answer. If confirmed, I believe that Secretary Gates would expect 
me to implement the President's national security objectives throughout 
the Department of the Navy.
    Question. What duties and responsibilities would you plan to assign 
to the Under Secretary of the Navy?
    Answer. If confirmed, the Under Secretary would be designated as 
deputy and principal assistant to me, and per the National Defense 
Authorization Act (NDAA) 2009 the Chief Management Officer (CMO) of the 
Navy.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Secretary of the 
Navy?
    Answer. My accumulated professional experience which includes being 
the Governor of Mississippi, Ambassador to Saudi Arabia, and senior 
leadership and management positions in the private sector provides me 
with the tools necessary to lead large and complex organizations. I 
approach the Secretary of the Navy's duties and responsibilities with 
an open mind and a dedication to serve. If confirmed, I will seek to 
rapidly assemble a strong team composed of dedicated, experienced, and 
talented people.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Secretary of the Navy to the following officials:
    The Secretary of Defense.
    Answer. The Secretary of the Navy reports directly to the Secretary 
of Defense and ensures that his priorities are implemented in the 
Department of the Navy.
    Question. The Deputy Secretary of Defense.
    Answer. The Secretary of the Navy works closely with the Deputy 
Secretary of Defense to ensure that the Secretary of Defense's 
priorities are implemented in the Department of the Navy.
    Question. The Under Secretaries of Defense.
    Answer. If confirmed, I, the Under Secretary of the Navy, and the 
Assistant Secretaries of the Navy will coordinate and work closely with 
the Under Secretaries of Defense to ensure the Department of the Navy's 
actions complements the priorities set forth by the Secretary of 
Defense and the Deputy Secretary of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Secretary of the Navy coordinates with the Chairman of 
the Joint Chiefs of Staff to ensure that he has all the information and 
support necessary from the Department of Navy to perform the duties of 
principal military advisor to the President, National Security Council, 
and Secretary of Defense.
    Question. The other Service Secretaries.
    Answer. The Secretary of the Navy should maintain close and 
positive relationships with the other Service Secretaries to ensure 
that a cohesive and fully equipped and trained joint force is prepared 
to execute operations in support of our national interests.
    Question. The Chief of Naval Operations.
    Answer. The Chief of Naval Operations performs his duties under the 
authority, direction, and control of the Secretary of the Navy and is 
directly responsible to the Secretary according to Title 10.
    Question. The Commandant of the Marine Corps.
    Answer. The Commandant of the Marine Corps performs his duties 
under the authority, direction, and control of the Secretary of the 
Navy and is directly responsible to the Secretary according to title 
10.
    Question. The combatant commanders
    Answer. The Secretary of the Navy supports the combatant 
commanders' operational and warfighting requirements.
    Question. The Under Secretary of the Navy.
    Answer. The Under Secretary of the Navy is the principal assistant 
to the Secretary of the Navy. He acts with full authority of the 
Secretary in the management of the Department and performs any duties 
given him by Secretary of the Navy.
    Question. The Assistant Secretaries of the Navy
    Answer. The Assistant Secretaries perform specific oversight roles 
delegated to them by the Secretary of the Navy.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel is the senior civilian legal advisor to 
Secretary of the Navy. The General Counsel also serves as the Secretary 
of the Navy's chief ethics official.
    Question. The Judge Advocate General of the Navy.
    Answer. The Judge Advocate General of the Navy and the Staff Judge 
Advocate to the Commandant of the Marine Corps are the Secretary of the 
Navy's senior uniformed legal advisors.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Secretary of the Navy?
    Answer. If confirmed, my challenges will include: providing for the 
health and welfare of our sailors, marines, and their families; 
supporting Overseas Contingency Operations and maintaining readiness; 
maintaining fiscal and budget discipline and establishing and 
maintaining long-term shipbuilding and aviation procurement programs 
that are achievable affordable, and responsive to the needs of the 
Nation.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I plan to work closely with Congress, the President, the 
Secretary of Defense, the Chief of Naval Operations, and the Commandant 
of the Marine Corps, as well as other people and institutions to 
address manpower costs while continuing to support our sailors, marines 
and their families; execute affordable and effective shipbuilding and 
aviation plans; and address budget issues.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Secretary of the Navy?
    Answer. I am not aware of any serious problems in the performance 
of the functions of the Secretary of the Navy.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work closely with the Secretary of 
Defense and the Service Chiefs to develop plans to address any areas 
requiring attention.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. The broad priorities of the Department of the Navy will be 
aligned with those established by the Secretary of Defense. These 
include commitment to and support for maintaining the All-Volunteer 
Force; balancing programs to fight the wars we are fighting in Iraq and 
Afghanistan; ensuring we are prepared for other operations and 
contingencies; and reforming acquisition, procurement, and contracting.
                             transformation
    Question. If confirmed as the Secretary of the Navy, you would play 
an important role in the ongoing process of transforming the Navy and 
Marine Corps to meet new and emerging threats.
    If confirmed, what would your goals be for Navy and Marine Corps 
transformation?
    Answer. The Navy and Marine Corps continuously assess new and 
emerging threats to ensure that their personnel are trained and 
equipped to meet and defeat them.
    Question. In your opinion, does the Department of the Navy's 
projected budget have adequate resources identified to implement your 
transformation goals?
    Answer. I have not had the opportunity to study in depth the 
Department's budget requests.
                           tactical aviation
    Question. Several years ago, the Navy and Marine Corps began to 
integrate their tactical aviation units.
    What is your assessment of this initiative?
    Answer. My initial assessment based upon limited information is 
that integration of tactical aviation between the Navy and Marine Corps 
allows the Department of the Navy to best meet the needs of the Nation.
    Question. The Department of the Navy is facing a potential 
shortfall of strike fighter aircraft in the next decade even if the 
Navy continues to buy F/A-18E/F aircraft and F-35 Joint Strike Fighter 
(JSF) aircraft at the rate projected in last year's budget.
    What is your assessment of this situation and what actions should 
the Department of the Navy take to address this potential shortfall?
    Answer. If confirmed, I will review current and projected 
procurement of strike fighter aircraft, a top priority for Naval 
Aviation, and determine the actions and strategies necessary to 
mitigate or prevent any potential shortfall.
    Question. What is your understanding of whether the Navy will 
continue to operate the 10 carrier air wings that supported the fleet 
of 11 aircraft carriers, or whether the air wing force structure will 
be modified to reflect a planned reduction to a permanent level of 10 
aircraft carriers?
    Answer. I am not aware of plans to reduce air wing force structure, 
although this issue, like all force structure issues, will be reviewed 
in the Quadrennial Defense Review (QDR). If confirmed, I will work with 
the Secretary of Defense to ensure the QDR reflects the best balance of 
capabilities and risk for the Nation.
    Question. What is your assessment of the current risk to the F-35 
JSF Program schedule during its system development and demonstration 
phase?
    Answer. I am not aware of the status of risk to the JSF program, 
although I know the Navy and Marine Corps are fully committed to the 
JSF program.
    Question. Alternatives for maintaining sufficient strike assets if 
there are new schedule difficulties with the JSF program are limited. 
It appears that the Department of the Navy's options for extending the 
service life of existing F/A-18 aircraft are limited and procurement of 
additional F/A-18 aircraft beyond those planned last year may be more 
difficult with the Secretary of Defense's recent announcement of a 
reduction of nine F/A-18 aircraft from the number originally planned 
for the fiscal year 2010 program.
    What other potential alternatives do you see for maintaining 
sufficient strike assets if there were any additional slippage in the 
initial operating capability date for the F-35 JSF?
    Answer. If confirmed, I will fully review strike asset 
requirements, taking into account all naval systems--airborne, surface 
and subsurface, manned and unmanned--capable of delivering striking 
power. It is essential that we maintain an effective naval strike 
capability to support the Joint Force.
                           shipbuilding plan
    Question. The Navy annually submits a 30-year shipbuilding plan. 
The last shipbuilding plan included very optimistic assumptions about 
unit costs of ships and excluded any funding for a replacement for the 
current fleet of Trident ballistic missile submarines.
    Do you agree that the 30-year shipbuilding plan should, in fact, 
reflect realistic cost estimates and include all important shipbuilding 
efforts for that document to be useful for decisionmakers?
    Answer. In order to effectively plan and achieve cost efficiencies 
it is important to have realistic cost estimates; this is especially 
true for a shipbuilding program.
    Question. What level of funding do you think the Navy will need to 
execute this plan, and considering competing priorities, do you believe 
this level of funding is realistic?
    Answer. I have not yet examined in detail the level of funding that 
Navy will need to execute the 30-year shipbuilding plan. If confirmed, 
I am committed to being a responsible steward of the taxpayers' dollars 
while ensuring development of the most efficient and effective ship 
building plan.
    Question. Cost growth continues to be a prevalent problem in Navy 
shipbuilding programs, particularly for the first ships in new classes. 
Some experts have taken the position that DOD could improve the 
performance of its acquisition plans by adopting commercial practices, 
such as: retiring all major risk prior to signing a procurement 
contract; fixing the cost and delivery date at contract signing; 
competing all basic and functional design prior to starting 
construction; and having a disciplined construction process that 
delivers ships on cost and on schedule.
    To what extent should such commercial shipbuilding best practices, 
and any others you may be aware of, be incorporated into Navy 
shipbuilding programs?
    Answer. There are significant differences between commercial 
shipbuilding and Navy shipbuilding. The best practices from each should 
be used to determine the most efficient and cost effective way to 
procure the ships the Navy requires for the defense of our country.
                           aircraft carriers
    Question. The Navy decommissioned the USS John F. Kennedy in fiscal 
year 2006. This decreased the number of aircraft carriers to 11. 
Additionally, in the fiscal year 2006 budget request, the Navy slipped 
the delivery of CVN-78 (USS Gerald R. Ford) to 2015, creating a 2-year 
gap between the scheduled decommissioning of the USS Enterprise and the 
availability of a new aircraft carrier. During this period, under the 
proposed plan, only 10 aircraft carriers would be operational. 
Recently, there have been reports that delivery of the USS Gerald R. 
Ford could be further delayed because of technical difficulties with 
the electromagnetic aircraft launch system.
    What is your view of the plan announced by Secretary Gates to 
permanently change the aircraft carrier force structure to 10 from the 
current number of 11?
    Answer. I understand that Secretary Gates' recommendation is for 
the Navy's aircraft carrier force structure to be 10 carriers in 2040. 
If confirmed, I will work with the Secretary of Defense during the QDR 
to examine the aircraft carrier force structure.
    Question. Is it Secretary Gates' plan to retire another aircraft 
carrier when the USS Gerald R. Ford delivers to keep the carrier force 
structure at 10 carriers?
    Answer. I am not aware of such a plan.
    Question. If not, do you believe that this reduced carrier force 
structure for a 2-year gap is supported by adequate analysis?
    Answer. I have been told that the Navy has developed a mitigation 
plan. If confirmed, I will review that plan to ensure the Navy can 
provide sufficient carriers to support the operational needs of the 
combatant commanders.
    Question. How would the aircraft carrier presence requirements of 
combatant commanders be met with only 10 operational aircraft carriers, 
particularly if the 10 carrier force structure is made permanent?
    Answer. I have not had access to the information necessary to 
analyze combatant commander requirements. If confirmed, I will fully 
review this matter.
                           surface combatants
    Question. Until fiscal year 2009, the Future Years Defense Program 
had plans for buying DDG-1000 destroyers until the Navy was ready to 
begin procurement of a new missile defense cruiser, CG(X). During 
budget deliberations last year, Navy leadership announced that the Navy 
wanted to cancel the DDG-1000 program after building only two ships and 
restart the DDG-51 production line. Ultimately, the Secretary of 
Defense decided not to cancel the third DDG-1000 that was requested as 
part of the fiscal year 2009 budget.
    In your judgment, can a credible and capable surface force be 
sustained at the level of multi-mission surface combatant construction 
the Navy currently plans, and if so, how?
    Answer. I have not fully reviewed the Navy's shipbuilding plan; 
however, I believe that the QDR may have an impact on the existing 
plan. If confirmed, I would seek an appropriate force mix of surface 
combatants while considering our requirements in terms of capability 
and capacity.
    Question. Has the Navy produced adequate analysis of the effects of 
the new shipbuilding plan on the surface combatant industrial base?
    Answer. I do not have sufficient information on the shipbuilding 
plan and its relationship to the industrial base. If confirmed, my 
objective will be to work to ensure that the Navy plan supports force 
structure needs and maintains a viable industrial base.
    Question. In your opinion, how many shipyards capable of building 
surface combatants does this Nation need?
    Answer. The answer to this question is complex and must consider: 
shipyard capabilities, the need for surge capacity, the benefit of 
competition in minimizing costs, possible disruptions from natural and 
manmade disasters, and the industrial infrastructure that supports the 
shipbuilding industry. If confirmed, I will work with the Chief of 
Naval Operations, Congress, industry, and others to determine the 
appropriate number of shipyards needed to efficiently build our surface 
combatants--a key aspect of our Nation's strength.
                           acquisition issues
    Question. What are your views regarding the need to reform the 
process by which the Department of the Navy acquires major weapons 
systems? If confirmed, what steps would you recommend to improve that 
process?
    Answer. Acquisition reform is a top priority for President Obama 
and Secretary Gates, and if confirmed, one of my highest priorities 
would be support them by ensuring the Department of the Navy acquires 
weapons systems in the most efficient and cost effective way possible.
    Question. Department-wide, nearly half of the DOD's 95 largest 
acquisition programs have exceeded the so-called ``Nunn-McCurdy'' cost 
growth standards established in section 2433 of title 10, U.S.C. The 
cost overruns on these major defense acquisition programs now total 
$295 billion over the original program estimates, even though the 
Department has cut unit quantities and reduced performance expectations 
on many programs in an effort to hold costs down. Many of those 
programs are being executed by the Department of the Navy.
    What steps, if any and if confirmed, would you take to address the 
out-of-control cost growth on the Department of the Navy's major 
defense acquisition programs?
    Answer. If confirmed, one of my top priorities will be to review 
the acquisition process and existing systems to ensure the Department 
of the Navy receives items on time and on cost.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. I agree with Secretary Gates that programs that 
underperform or are over cost should be immediately considered for 
termination. The Department of the Navy must clearly determine what it 
needs, what alternatives if any could satisfy those needs, and what 
options and trade-offs provide best value. If confirmed, should a 
program experience a Nunn/McCurdy breech, I will work with the 
Secretary of Defense and other senior leaders in the Department to 
thoroughly review it and determine if continuation or termination is in 
the best interest of the Department of the Navy and the taxpayer.
    Question. Many experts have acknowledged that the DOD may have gone 
too far in reducing its acquisition workforce, resulting in undermining 
of its ability to provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Department of the 
Navy should take to address this problem?
    Answer. The acquisition workforce has been reduced to the point 
that it impedes the Department's ability to provide adequate management 
and oversight of the acquisition process. If confirmed, ensuring the 
Department of the Navy has adequate personnel to manage and oversee of 
the acquisition process will be a priority for me.
    Question. Section 852 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2008 establishes an Acquisition Workforce 
Development Fund to provide the resources needed to begin rebuilding 
the Department's corps of acquisition professionals.
    Do you believe that a properly sized workforce of appropriately 
trained acquisition professionals is essential if the Navy is going to 
get good value for the expenditure of public resources?
    Answer. Yes.
    Question. What steps do you expect to take, if confirmed, to ensure 
that the Navy makes appropriate use of the funds made available 
pursuant to section 852?
    Answer. It is my understanding that the Department of the Navy is 
working closely with the DOD to hire additional acquisition 
professionals. If confirmed, I will review the status of the 
Department's acquisition workforce, including quantity, competencies, 
and alignment to ensure the Department of the Navy efficiently and 
effectively executes acquisition programs.
    Question. Would you agree that shortened tours as program managers 
can lead to difficulties in Acquisition programs? If so, what steps 
would you propose to take, if confirmed, to provide for stability in 
program management?
    Answer. Shortened tours of program managers can lead to lack of 
consistency in acquisition programs. If confirmed, I will review the 
status of the Department's program manager tour lengths.
    Question. Major defense acquisition programs in the Department of 
the Navy and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    What steps, if any, do you believe the Navy should take to address 
funding and requirements instability?
    Answer. Stable requirements and funding are critical for a 
successful acquisition process. If confirmed, I will examine the Navy's 
acquisition process and seek to maximize stability in funding and 
requirements.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    If so, what steps do you believe the Department of the Navy should 
take to address these problems?
    Answer. I have not had an opportunity to review the Comptroller 
General's assessment. However, realistic program costs and clearly 
defined requirements are essential to ensuring an effective and 
efficient acquisition process.
    Question. By some estimates, the DOD now spends more money every 
year for the acquisition of services than it does for the acquisition 
of products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Navy and Marine Corps should 
take to improve the staffing, training, and management of its 
acquisition of services?
    Answer. Improvements in the acquisition process require a focus on 
acquisition of services as well as acquisition of systems. It is my 
understanding that the Department of the Navy is focusing on these 
concerns in the acquisition of services. If I am confirmed, I will work 
to ensure that there is proper staffing, training, and management of 
the acquisition of services in the Department of the Navy.
    Question. Do you agree that the Navy and Marine Corps should 
develop processes and systems to provide managers with access to 
information needed to conduct comprehensive spending analyses of 
services contracts on an ongoing basis?
    Answer. Yes.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multiagency contracts. The DOD is by far 
the largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Navy and Marine Corps should 
take to ensure that its use of interagency contracts complies with 
applicable DOD requirements and is in the best interests of the 
Department of the Navy?
    Answer. If interagency contracts are not appropriately planned, 
competed, managed, and monitored, then they are not in the best 
interest of the Department of the Navy. Acquisition reform must focus 
upon ensuring that interagency contracts are effective and that the 
Department's use of interagency contracts complies with applicable 
rules and requirements.
    Question. In the Budget Blueprint that supports the fiscal year 
2010 Presidential budget request, the administration committed to 
``set[ting] realistic requirements and stick[ing] to them and 
incorporat[ing] `best practices' by not allowing programs to proceed 
from one stage of the acquisition cycle to the next until they have 
achieved the maturity to clearly lower the risk of cost growth and 
schedule slippage.''
    If confirmed, what steps would you recommend to help ensure that 
the Department makes good on this commitment?
    Answer. It is critical to set and meet realistic requirements and 
to use best practices throughout the acquisition process. While I do 
not have sufficient information to recommend any specific steps at this 
time, if confirmed I intend to support the commitment and that major 
acquisition programs receive the appropriate level of management 
attention.
    Question. Recent congressional and DOD initiatives have attempted 
to reduce technical and performance risks associated with developing 
and producing major defense acquisition programs, including ships, so 
as to minimize the need for cost-reimbursable contracts.
    Do you think that the Department should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. There are benefits to fixed price contracts; however, they 
may not be appropriate under all circumstances. The use of fixed price 
contracts in the acquisition process for major defense programs should 
be given due attention.
    Question. Section 811 of the NDAA for Fiscal Year 2008 amended 
section 2306b of title 10, U.S.C. to ensure that the DOD enters 
multiyear contracts only in cases where stable design and stable 
requirements reduce risk, and only in cases where substantial savings 
are expected. The revised provision requires that data be provided to 
Congress in a timely manner to enable the congressional defense 
committees to make informed decisions on such contracts.
    What types of programs do you believe are appropriate for the use 
of multiyear contracts?
    Under what circumstances, if any, do you believe that a multiyear 
contract should be used for procuring Navy weapons systems that have 
unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes?
    Answer. Multiyear contracts are most appropriate when the design 
and requirements are stable and they provide the best value for the 
taxpayer and the Department of the Navy. Any weapons system which has 
an unsatisfactory program history should be closely examined and 
deficiencies corrected prior to continuing a multiyear contract.
    Question. If confirmed, will you ensure that the Navy and the 
Marine Corps fully comply with the requirements of section 2306b of 
title 10, U.S.C., as amended by section 811 of the NDAA for Fiscal Year 
2008 (Public Law 110-181) with respect to programs that are forwarded 
for authorization under a multiyear procurement contract?
    Answer. Yes.
    Question. The statement of managers accompanying section 811 of the 
NDAA for Fiscal Year 2008 addresses the requirements for buying major 
defense systems under multiyear contracts as follows: ``The conferees 
agree that `substantial savings' under section 2306b(a)(1) of title 10, 
U.S.C., means savings that exceed 10 percent of the total costs of 
carrying out the program through annual contracts, except that 
multiyear contracts for major systems providing savings estimated at 
less than 10 percent should only be considered if the Department 
presents an exceptionally strong case that the proposal meets the other 
requirements of section 2306b(a), as amended. The conferees agree with 
a Government Accountability Office finding that any major system that 
is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multiyear 
procurement contract.
    If confirmed, under what circumstances, if any, do you anticipate 
that you would support a multiyear contract with expected savings of 
less than 10 percent?
    Answer. I am not prepared to answer this question until I have 
thoroughly reviewed the NDAA 2008 and Section 811. If confirmed, I will 
work with DOD and Navy acquisition professionals to determine when to 
use multiyear contracts.
    Question. If confirmed, under what circumstances, if any, would you 
support a multiyear contract for a major system at the end of its 
production line?
    Answer. Any decision to support a multiyear contract would be done 
on a case-by-case basis consistent with section 811, and occur only 
after detailed analysis and discussion with DOD and Navy acquisition 
professionals.
    Question. What is your understanding of the new requirements 
regarding the timing of any DOD request for legislative authorization 
of a multiyear procurement contract for a particular program?
    Answer. If confirmed, these requirements would be incorporated as 
part of the overall analysis of the acquisition process. The Department 
of the Navy will comply with these timing requirements.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy complies with 10 U.S.C., section 2366a, which requires that 
the Milestone Decision Authority for a Major Defense Authorization 
Program (MDAP) certify that critical technologies have reached an 
appropriate level of maturity before Milestone B approval?
    Answer. If confirmed, I will ensure that the Department of the Navy 
will fully comply with the law.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics has issued a memorandum directing that the 
largest DOD acquisition programs undergo competitive prototyping to 
ensure technological maturity, reduce technical risk, validate designs, 
cost estimates, evaluate manufacturing processes, and refine 
requirements.
    Do you support that requirement?
    Answer. Yes.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy complies with this new requirement?
    Answer. If confirmed I will support this requirement in programs 
where competitive prototyping will further the aims of the memorandum.
                       business management issues
    Question. The Navy's business systems, like those of the other 
military departments, remain incapable of providing timely, reliable 
financial data to support management decisions. In particular, the 
Government Accountability Office has reported that the Navy has not yet 
followed DOD's lead in establishing new governance structures to 
address business transformation; has not yet developed comprehensive 
enterprise architecture and transition plan that plug into DOD's 
federated architecture in a manner that meets statutory requirements; 
and instead continues to rely upon old, stove piped structures to 
implement piecemeal reforms. Section 902 of the NDAA for Fiscal Year 
2008 endeavored to address this problem by designating the Under 
Secretary of the Navy as the Navy's CMO. Section 908 of the NDAA for 
Fiscal Year 2009 requires the CMO of each of the military departments 
to carry out a comprehensive business transformation initiative, with 
the support of a new Business Transformation Office.
    If confirmed, what steps, if any, would you take to ensure that the 
Navy develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. If confirmed, I will work to ensure that the Department of 
the Navy follows the DOD lead in establishing new governance structures 
needed for business transformation. This would also include laying the 
groundwork for the development of a well-defined, enterprise-wide, 
business systems architecture and business transformation plan.
    Question. If confirmed, what role do you expect to play, and what 
role do you expect your Under Secretary to play, in carrying out these 
initiatives?
    Answer. I expect the Under Secretary as the designated Department 
of the Navy CMO to provide the guidance and oversight to ensure 
compliance with DOD direction on business transformation. Additionally, 
if confirmed, I will ensure that the CMO is given the authority to 
effectively organize the business operations of the department.
                    mine countermeasures capability
    Question. Congress has been particularly interested in the Navy's 
ability to respond to the asymmetric threat posed by mines. The Navy 
has had mixed results in fielding robust mine countermeasures 
capabilities.
    If confirmed, what steps would you take to ensure that the Navy 
maintains its focus on achieving robust mine countermeasures 
capabilities for the fleet?
    Answer. A capable mine countermeasure program is essential to the 
operational effectiveness of the fleet. If confirmed, I am committed to 
ensuring that the Navy maintains a robust program.
                         housing privatization
    Question. The DOD has been engaged in the privatization of many of 
its support functions. Among the most significant privatization efforts 
are military family housing units and utility systems.
    What challenges do the Navy and Marine Corps face in implementing 
housing privatization?
    Answer. I recognize that a public-private venture program has 
benefits. However, I do not have the information to analyze the 
specific challenges faced by the Navy and Marine Corps in their housing 
privatization program. If confirmed, I will work to ensure that the 
Department of the Navy is implementing the program in the most 
effective way possible.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    Based on your experience in government and the private sector, do 
you believe the Navy and Marine Corps are investing enough in their 
infrastructure?
    Answer. If confirmed, I will review the sufficiency of the 
Department of the Navy's investment in infrastructure.
            implementation of base closures and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process has resulted in the required closure or realignment of numerous 
major naval installations. The DOD installation closure process 
resulting from BRAC decisions has historically included close 
cooperation with the affected local community in order to allow these 
communities an active role in the reuse of property.
    If confirmed, would you change any of the existing efforts to 
assist affected communities with economic development, revitalization, 
and re-use planning of property received as a result of the BRAC 
process?
    Answer. If confirmed, I will support the DOD's goals to 
expeditiously dispose of property in order to facilitate economic 
development within effected communities. I will also work with local 
communities to facilitate expeditious conversion of excess property to 
civilian use.
              humanitarian assistance and disaster relief
    Question. In recent years, the Navy has provided extensive support 
of humanitarian assistance and disaster relief operations throughout 
the world. Naval and Marine Corps forces responded rapidly to the 
December 2004 tsunami in the Indian Ocean utilizing over 25 ships, the 
hospital ship USNS Mercy, and delivering 24 million pounds of relief 
supplies. Naval and Marine Corps forces also led recovery and relief 
operations in Pakistan following devastating earthquakes. These forces 
and ships of all types also responded to Hurricanes Katrina and Rita 
across the southern coast of the United States.
    What is your view of the importance of the Navy and Marine Corps 
mission to provide humanitarian assistance and disaster relief 
throughout the world?
    Answer. These are core capabilities of the Navy and Marine Corps as 
stated in the Maritime Strategy, and as such, are of high importance.
    Question. Do you believe the mission is sustainable within a 
constrained defense budget?
    Answer. As a core capability of the Navy and Marine Corps, it 
should be sustained within a constrained budget through planning and 
oversight.
    Question. If confirmed, how would you approach the funding and 
execution of this mission in light of current budget and naval mission 
priorities?
    Answer. Funding will be thoroughly reviewed and analyzed in 
developing the Department's recommended budget while execution will be 
subject to planning and oversight.
             department of the navy science and technology
    Question. Do you believe that the current balance between short- 
and long-term research is appropriate to meet current and future 
Department of the Navy needs?
    Answer. A balanced approach to short-term and long-term research is 
critical to meet current and future Department of the Navy needs. If 
confirmed, I will evaluate the research program and work to ensure that 
an appropriate balance is in place.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Navy and Marine 
Corps missions?
    Answer. If confirmed, I will support innovative defense science 
which might include engaging the Science and Technology Corporate Board 
as well as take other actions to ensure this vital area is addressed.
    Question. If confirmed, what guidance would you give to ensure 
research priorities that will meet the needs of the Navy and Marine 
Corps in 2020?
    Answer. If confirmed, I will support a balanced program of science 
and technology investment in basic and applied research and advanced 
development across the spectrum of naval needs. I will seek a program 
that focuses on science and technology areas that provide the biggest 
payoff for the future, fosters innovative thinking, efficient and 
effective business processes, and improves our ability to transition 
findings to acquisition programs.
           defense integrated manpower human resources system
    Question. Defense Integrated Manpower Human Resources System 
(DIMHRS) is a single integrated human resources pay and personnel 
system for all the Armed Services and the Defense Finance and 
Accounting System, and is intended to replace many of the systems 
currently used to perform personnel management and pay functions. 
DIMHRS, which has been under development for several years, has come 
under criticism for cost growth, delays in implementation, and not 
meeting the expectations of each Service.
    What are your views of the need for completion of implementation of 
DIMHRS and what specific benefits, if any, would the Department of the 
Navy derive from this system?
    Answer. I understand that DIMHRS is an initiative to develop and 
deploy an integrated human resources pay and personnel management 
system for the entire DOD. Although I do not have the information 
concerning the specific challenges encountered in developing the DIMHRS 
system, if confirmed I will work with appropriate authorities to ensure 
the Department of the Navy has an effective pay and personnel system.
    Question. What is your understanding of the Navy and Marine Corps 
positions with respect to the utility of DIMHRS and its suitability for 
sailors and marines?
    Answer. I understand the position of the Navy and Marine Corps is 
that DIMHRS is not, at this time, ready for use.
                       delivery of legal services
    Question. What is your understanding of the respective roles of the 
General Counsel and Judge Advocate General of the Navy in providing the 
Secretary of the Navy with legal advice?
    Answer. The General Counsel and the Judge Advocate General each 
bring independent and complementary perspectives to the Department's 
legal requirements. The General Counsel provides specialized expertise 
in ethics, acquisition and civilian personnel matters. The Judge 
Advocate General provides the uniformed and operational perspective 
that is essential to good order and discipline of a globally deployed 
force. Together, these two leaders comprise an integrated legal cadre 
that ensures the proper operation of the services and the Department as 
a whole.
    Question. What are your views about the responsibility of staff 
judge advocates within the Navy and Marine Corps to provide independent 
legal advice to military commanders in the fleet and throughout the 
naval establishment?
    Answer. Navy and Marine Corps staff judge advocates are selected 
and trained to provide timely, relevant, and independent advice to 
commanders afloat and ashore. Flexible and worldwide deployable, the 
judge advocate communities of the Navy and Marine Corps are structured 
to ensure sufficient numbers of deployable and well-trained military 
lawyers are ready to respond to emergent requirements.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant of the Marine Corps to provide independent legal advice to 
the Chief of Naval Operations and the Commandant of the Marine Corps, 
respectively?
    Answer. The uniformed military attorneys of the Navy and Marine 
Corps are critical components of the Department's legal team. The Judge 
Advocate General and the Staff Judge Advocate to the Commandant of the 
Marine Corps perform functions in their respective organizations that 
are essential to the proper operation of their service and the 
Department as a whole.
                  navy judge advocate general's corps
    Question. The Center for Naval Analyses (CNA) recently completed a 
study of manpower requirements for the Navy in which it concluded that 
the Navy's Judge Advocate General's Corps was significantly under 
strength for its mission, including combat service support of Marine 
Corps' units and Task Force 134 in Iraq.
    What is your understanding of the CNA study's findings with respect 
to manpower in the Navy JAG Corps?
    Answer. I have not had the opportunity to review the findings of 
the CNA study. However, if confirmed, I will consider judge advocate 
end strength as part of my overall review of manpower requirements
    Question. What is your understanding of the sufficiency of the 
number of active-duty judge advocates in the Marine Corps to provide 
legal support for all the Marine Corps' missions?
    Answer. I do not have the information to offer an opinion on the 
sufficiency of current manpower. If confirmed, I will consider this as 
part of the overall review of manpower requirements.
    Question. If confirmed, will you review the judge advocate manning 
within the Navy and Marine Corps and determine whether current active-
duty strengths are adequate?
    Answer. Yes.
       support for wounded, ill, and injured sailors and marines
    Question. Wounded servicemembers from Operations Enduring Freedom 
and Iraqi Freedom deserve the highest priority from the Navy and Marine 
Corps for support services, healing and recuperation, rehabilitation, 
evaluation for return to duty, successful transition from active duty 
if required, and continuing support beyond retirement or discharge.
    How do the Navy and Marine Corps provide follow-on assistance to 
wounded personnel who have separated from active service? How effective 
are those programs?
    Answer. The Navy has established the ``Safe Harbor'' Program and 
the Marine Corps has established the ``USMC Wounded Warrior Regiment.'' 
They extend support to the Wounded Warrior from separation or 
retirement from the service through reintegration into a community. If 
confirmed, I will continue to assess the effectiveness of these 
programs, and to develop and refine best practices to make sure these 
programs are successful.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's and Marine 
Corps' support for wounded personnel, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. If confirmed, I will work to ensure sailors and marines and 
their families are provided with the best medical care and support they 
need throughout their recovery, rehabilitation, reintegration as a 
result of their selfless service and sacrifice.
    Question. What measures would you take, if confirmed, to facilitate 
the seamless transition of wounded, ill, and injured sailors and 
marines from the DOD to the Department of Veterans Affairs (VA)?
    Answer. Fostering a continuity of care between DOD and VA systems 
is essential to facilitate the most efficient and effective transition. 
Continued collaboration with the DOD and Veterans' Affairs will further 
strengthen the transition of health care for wounded, ill, and injured 
sailors and marines.
    Question. Would you propose any changes to the Navy's disability 
evaluation system?
    Answer. The Physical Evaluation Board manages the Navy's disability 
evaluation system. If confirmed, I will review and assess the 
evaluation and separation process to ensure it is fair.
                   national security personnel system
    Question. Section 1106 of the NDAA for Fiscal Year 2008 restored 
the collective bargaining rights of civilian employees included in the 
National Security Personnel System (NSPS) established by the DOD 
pursuant to section 9902 of title 5, U.S.C. Under section 1106, the 
Department retains the authority to establish a new performance 
management system (including pay for performance) and streamlined 
practices for hiring and promotion of civilian employees.
    What is your view of the NSPS, as currently constituted?
    Answer. I do not have sufficient information at this time on the 
NSPS. If confirmed, I will coordinate with the Secretary of Defense to 
ensure the Navy's human resource management system provides necessary 
flexibility in assigning work with effective performance management 
processes aligned to the mission while preserving employee benefits, 
rights, and protections.
    Question. If confirmed, how will you evaluate its success or 
failure to meet its goals?
    Answer. If confirmed, information and data will be collected in 
various ways, including reaching out to key stakeholders, to give a 
concrete basis for review of NSPS.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. I do not have sufficient information at this time on the 
NSPS. If confirmed, I will review how the NSPS supports the pay-for-
performance approach in the Department of the Navy and make 
recommendations to the Secretary of Defense accordingly.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. At this time I do not have the information necessary to 
make this judgment.
    Question. In your view, is it viable in the long run for the DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. I do not have enough information at this time to evaluate 
the viability of maintaining both the NSPS and General Schedule systems 
for civilian employees. If confirmed, I will include this issue in my 
review of civilian pay systems.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. I am informed the DOD is conducting a review of NSPS. 
Prudency dictates waiting for the results of that review and the 
related recommendations before making any judgments or assessments at 
this time.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. I am informed the DOD is conducting a review of NSPS. It is 
best to reserve judgment related to recommendations until the review of 
NSPS is completed.
             navy and marine corps recruiting and retention
    Question. The retention of quality sailors and marines, officer and 
enlisted, Active-Duty and Reserve, is vital to the Department of the 
Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. The Navy and Marine Corps continue to recruit and retain 
high caliber personnel for Active and Reserve Service. Both Services 
have exceeded their goals for active duty enlisted accessions and new 
contracts in fiscal year 2008 and are already at the goal established 
for 2009.
    Question. What initiatives would you take, if confirmed, to further 
improve the attractiveness of Navy and Marine Corps, Active-Duty and 
Reserve Service?
    Answer. It is my understanding that recruiting and retention have 
been successful in recent years. If confirmed, I will work with the 
Chief of Naval Operations and the Commandant of the Marine Corps to 
further improve the Naval Services attractiveness to recruits and their 
families.
              senior military and civilian accountability
    Question. While representative of a small number of individuals in 
DOD, reports of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently received. Whistleblowers and victims of abuses often report 
that they felt that no one would pay attention to or believe their 
complaints. Accusations of unduly lenient treatment of senior officers 
and senior officials against whom accusations have been substantiated 
are also frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. The U.S. Navy and Marine Corps traditions and history 
demand the exemplary conduct of its senior civilian and military 
leaders. The high standards of conduct that were taught to and expected 
of me as a junior naval officer are precisely the standards I will 
require of all senior civilian and military leaders in the Department 
of the Navy if I am confirmed. The Secretary of the Navy and senior 
military and civilian leaders must set the example for their 
subordinates. If our Nation's Navy and Marine Corps are to be respected 
among all nations, then we must maintain the highest standards of 
honor, integrity, and absolute adherence to the rule of law. Therefore, 
we must ensure prompt and thorough investigation of complaints, as well 
as swift and equitable treatment of those few people who fail to 
demonstrate exemplary conduct.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Navy and Marine Corps are held accountable for 
their actions and performance?
    Answer. The honor and privilege to lead and command in the naval 
service carries with it accountability for their actions and 
performance. If confirmed, I will continue to foster and enforce the 
Department of the Navy's earnest commitment to the highest ethical 
standards of principled leadership and honorable service.
                     navy support to ground forces
    Question. The Navy has been challenged to find new ways of 
supporting the Army and Marine Corps in Iraq and Afghanistan by taking 
on nontraditional support functions.
    In your view, what are the kinds of nontraditional support the Navy 
feasibly can provide, and what additional missions, if any, should the 
Navy be assigned in the global war on terrorism?
    Given that these are nontraditional roles for Navy personnel, what 
additional training and equipment have been provided, or, in your view, 
need to be provided?
    Answer. The Navy's sailor is known and respected for courage, 
resourcefulness, and versatility. At this time I do not have sufficient 
information on the types of nontraditional support the Navy can 
provide. However, I will examine current and anticipated nontraditional 
support and missions and will work to ensure that the necessary 
training and equipment is provided for our sailors to be successful 
executing them.
    Question. What procedures are in place for the Navy to assess the 
potentially adverse operational effect on organizations from which 
individual augmentees are drawn? If you do not believe these procedures 
are adequate, what should be done to strengthen them?
    Answer. At this time I do not have the information as to what 
Individual Augmentation procedures are in place. However, if confirmed, 
I will make it a priority to examine the entire Individual Augmentation 
process and the impact it has on the readiness of our operational 
forces.
               prevention and response to sexual assaults
    Question. What is your evaluation of the progress to date made by 
the Navy and Marine Corps in preventing and responding adequately to 
incidents of sexual assault?
    Answer. This is a high priority for me and is an essential aspect 
of maintaining Navy and Marine Corps values. If confirmed, I will use 
all means available to ensure that incidents of sexual assault are 
prevented or responded to rapidly and effectively.
    Question. What problems do you foresee, if any, in implementing 
current policies with respect to confidential, restricted reporting of 
sexual assaults by sailors and marines?
    Answer. Confidentiality and restricted reporting of sexual assaults 
is critical. I will work to ensure effective policies are implemented 
and enforced.
    Question. If confirmed, what actions do you plan to take to ensure 
that senior civilian leaders of the Department of the Navy have ongoing 
visibility into incidents of sexual assault and the effectiveness of 
policies aimed at preventing and responding appropriately to such 
incidents?
    Answer. I will make sure this issue is stressed and that there will 
be a regular and comprehensive evaluation of policies to ensure 
effectiveness.
               preventing sexual harassment and violence
    Question. The Defense Task Force on Sexual Harassment and Violence 
at the Military Service Academies reported that ``Historically, sexual 
harassment and sexual assault have been inadequately addressed at both 
Academies [United States Military Academy and United States Naval 
Academy]. Harassment is the more prevalent and corrosive problem, 
creating an environment in which sexual assault is more likely to 
occur. Although progress has been made, hostile attitudes and 
inappropriate actions toward women, and the toleration of these by some 
cadets and midshipmen, continue to hinder the establishment of a safe 
and professional environment in which to prepare military officers. 
Much of the solution to preventing this behavior rests with cadets and 
midshipmen themselves.''
    If confirmed, what actions would you take to encourage not only 
midshipmen but also all sailors and marines to step up to their 
responsibility to create a culture where sexual harassment and sexual 
assault are not tolerated?
    Answer. If confirmed, I will use all available tools to ensure 
every midshipman, sailor, marine, and civilian employee understands 
that sexual harassment and sexual assault won't be tolerated in the 
Department of the Navy and that swift and appropriate action will be 
taken against those who do not value such a culture.
    Question. If confirmed, what other actions would you take to 
address the problem of sexual harassment and sexual assault in the Navy 
and Marine Corps?
    Answer. Please see answer to previous question.
                             human capital
    Question. The Navy has a large civilian workforce that is integral 
to the support of the Navy's worldwide mission.
    What is your vision for an effective human capital strategy for the 
Navy's civilian workforce?
    Answer. The Navy's civilian workforce is made up of over 180,000 
employees worldwide, engaged in a myriad of mission areas and career 
fields. The Navy's vision must be broad enough to encompass this very 
wide range of people, missions, locations, and requirements, as well as 
provide the framework for developing policies and systems to ensure 
both capabilities and competencies are in place to meet the changing 
demands of our global force. If confirmed, I will work to ensure the 
Department of the Navy has an effective human capital strategy.
    Question. Section 1122 of the NDAA for 2006, as amended by section 
1102 of the John Warner NDAA for 2007 and section 851 of the NDAA for 
2008, requires the Secretary of Defense to develop and annually update 
a strategic human capital plan that specifically identifies gaps in the 
Department's civilian workforce and strategies for addressing those 
gaps. The DOD has not yet produced a strategic human capital plan that 
meets the requirements of these provisions.
    Do you believe that the Navy has appropriate planning processes in 
place to identify and address gaps in the capabilities of its civilian 
workforce?
    Answer. At this time I do not have sufficient information about 
what processes exist. However, if confirmed, I will work with the Chief 
of Naval Operations and Commandant of the Marine Corps to implement 
good planning processes that ensure any gaps are identified and 
addressed.
    Question. What do you view as the greatest challenges in recruiting 
and retaining a highly skilled civilian workforce?
    Answer. There are many challenges in recruiting and retaining a 
highly skilled workforce, to including compensation, working 
conditions, fair evaluation systems, and career paths.
                   personnel and health benefit costs
    Question. The cost of the Defense Health Program, like the cost of 
medical care nationwide, is escalating rapidly. Similarly, the cost of 
personnel as a key component of the Services' budgets has risen 
significantly in recent years.
    If confirmed, how would you approach the issue of rising health 
care and personnel costs?
    Answer. Based on my experience with fiscal management in state 
government and the private sector, I am aware that rising costs 
associated with health care and other personnel costs pose a 
significant threat to the fiscal strength of organizations nationwide. 
Streamlining and effective cost accounting alone cannot adequately 
ameliorate the effects of increasing medical costs. If confirmed, I 
will work with the Secretary of Defense to explore changes to the way 
the department meets these challenges.
                        quality of life programs
    Question. If confirmed, what priorities would you establish to 
ensure that military quality of life programs are sustained and 
improved for Navy and Marine Corps members and their families?
    Answer. Quality of life programs for Navy and Marine Corps 
personnel of all ranks and their families are a key component to 
ensuring readiness, job satisfaction, and retention. If confirmed, I 
will work with the Chief of Naval Operations and the Commandant of the 
Marine Corps to maintain focus and commitment to programs that support 
the quality of life needs of all naval personnel and their families.
    Question. What challenges do you foresee in sustaining quality of 
life programs, and are there new initiatives that you would undertake, 
if confirmed, to ensure the availability of high quality services, 
including child care, education, and recreational opportunities, for 
sailors and marines and their families?
    Answer. The current and anticipated economic and fiscal challenges 
could pose a threat to Navy and Marine quality of life programs. If 
confirmed, I will work to provide effective and innovative quality of 
life programs that our sailors, marines, and their families rely on, 
and are critical to maintaining combat readiness.
                       ballistic missile defense
    Question. Do you view ballistic missile defense--for both deployed 
forces and the U.S. homeland--as a core mission for the Navy?
    Answer. Yes.
                            readiness levels
    Question. What is your assessment of the current readiness of the 
Department of the Navy to execute its assigned missions?
    Answer. While naval forces are conducting combat and combat support 
missions in Operation Iraqi Freedom and Enduring Freedom, the naval 
forces also stand ready to answer the Nation's call across the spectrum 
of operations in support of the National Defense Strategy. Despite a 
high operational tempo due to Operation Iraqi Freedom, Operation 
Enduring Freedom, and other combatant commander requirements, our 
forces remain resilient, motivated, and are performing superbly around 
the globe. If confirmed, I will work to continue the Navy and Marine 
Corps proud tradition of readiness and ensure that our sailors and 
marines are fully trained, equipped, and resourced for their assigned 
missions.
    Question. What do you view as the major readiness challenges that 
will have to be addressed by the Navy and Marine Corps over the next 3 
years, and, if confirmed, how would you approach these issues?
    Answer. One of the most significant readiness challenges facing the 
Navy and Marine Corps is balancing current overseas contingency 
operations with other anticipated readiness requirements. Navy and 
Marine Corps procurement, acquisition, maintenance, and 
recapitalization are also readiness challenges.
    If confirmed, I will approach these issues by working with the 
Chief of Naval Operations and Commandant of the Marine Corps to review 
the Department's current challenges; craft a clear and concise vision 
and plan to address them; develop a means to track compliance and real 
savings for future use; work closely with my counterparts in the other 
Services, Office of the Secretary of Defense, Congress, and the defense 
industry; and reaffirm the strong relationships within the Navy and 
Marine Corps team.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. I do not have sufficient information at this time to 
adequately address accession to UNCLOS.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. At this time, I do not have sufficient information to form 
an opinion on the advantages or disadvantages to being a party to 
UNCLOS.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                               navy labs
    1. Senator Reed. Governor Mabus, I am concerned about the continued 
deterioration of the Navy's laboratory facilities. Research and 
development are essential to the long-term survival and efficiency of 
the fleet. Are Navy laboratories a high priority for you?
    Mr. Mabus. Yes they are. Navy laboratories are a critical source of 
technological competitive advantage for the Navy. In 2008, Navy 
established a Principal Civilian Deputy (PCD), a Senior Executive 
reporting to ASN (RDA), to address the needs. and capabilities of all 
the Navy Warfare Centers and Naval Research Lab and to improve the 
quality of the S&E workforce. This position engaged the senior civilian 
leadership of the Warfare Centers and Naval Research Lab through the 
Navy Lab and Centers Competency Group to strengthen the S&E workforce. 
In 2009, PCD ASNRDA has established a Science Technology Engineering & 
Mathematics Executive to establish a revitalization plan. The National 
Defense Authorization Act (NDAA) for Fiscal Year 2009, section 219, 
Mechanisms to Provide Funds for Defense Laboratories for Research and 
Development of Technologies for Military Missions, allows the DON to 
reinvest in science and technology.

    2. Senator Reed. Governor Mabus, how can the military construction 
(MILCON) allocation be changed to alleviate some of the more serious 
examples?
    Mr. Mabus. Currently there are two initiatives to mitigate this 
issue:
Defense Laboratory Revitalization Program (LRP)
    Continuation of the Laboratory Revitalization Program (LRP, Section 
2805 of Title 10, United States Code) has been an important initiative 
to help enhance the quality of our labs. This initiative provides 
temporary authority to support revitalization of DOD laboratories 
through unspecified minor MILCON projects and is a critical tool. LRP 
has allowed Navy Laboratories to carry out RDT&E Minor MILCON valued at 
up to $2.0 million to quickly meet emergent requirements. Warfare 
Centers have awarded projects in fiscal years 2008 and 2009 and plan to 
use this authority through fiscal year 2012.
Global Shore Infrastructure Plans (GSIPs) and Regional Integration Plan 
        (RIPS)
    Commander, Navy Installations Command (CNIC) is in the process of 
finalizing the second phase of GSIP development which identifies 
infrastructure capability gaps for Navy Enterprises and Providers. RIPS 
identify solutions to infrastructure capability gaps identified in 
GSIPs. NAVFAC Atlantic is expected to award a contract for the 
development of the Office of Naval Research functional plan (to be 
included in the CNIC GSIP) by the end of third quarter FY09. RIP 
solutions to GSIP infrastructure capability gaps are planned to be 
identified in time to support RDT&E projects in the 2012 budget 
request. Other RDT&E functional plans (SPAWAR, NAVAIR and NAVSEA 
Warfare Centers) to be included in the Fleet Readiness Enterprise GSIP 
are planned to be awarded for development in early next fiscal year 
pending funding availability.

    3. Senator Reed. Governor Mabus, are there other funding mechanisms 
that might be used to correct this deficiency?
    Mr. Mabus. Yes, currently Navy is executing several congressional 
directives:
NDAA for Fiscal Year 2008, Section 802, Lead Systems Integrator.
    This legislation has given impetus to reconstitute where necessary 
and to sustain and enhance systems engineering skills within the 
Warfare Centers.
NDAA for Fiscal Year 2008, Section 852, Department of Defense (DOD) 
        Acquisition Workforce Development Fund.
    This legislation provides funds for the recruitment, training, and 
retention of acquisition personnel of DOD to ensure that the DOD 
acquisition workforce has the capacity, in both personnel and skills, 
needed to properly perform its mission, provide appropriate oversight 
of contractor performance, and ensure that the Department receives the 
best value for the expenditure of public resources.
NDAA for Fiscal Year 2009, Section 219, Mechanisms to Provide Funds for 
        Defense Laboratories for Research and Development of 
        Technologies for Military Missions
    This legislation establishes mechanisms under which the director of 
a defense laboratory may use an amount of funds equal to not more than 
3 percent of all funds available to the defense laboratory for the 
following purposes: (a) to fund innovative basic and applied research 
that is conducted at the defense laboratory and supports military 
missions; (b) To fund development programs that supports the transition 
of technologies developed by the defense laboratory into operational 
use; (c) To fund workforce development activities that improve the 
capacity of the defense laboratory to recruit and retain personnel with 
needed scientific and engineering expertise.
NDAA for Fiscal Year 2009, Section 833, Acquisition Workforce Expedited 
        Hiring Authority
    This legislation designates any category of acquisition positions 
within the DOD as shortage category positions. It utilizes the 
authorities in such sections to recruit and appoint highly qualified 
persons directly to positions so designated.

    4. Senator Reed. Governor Mabus, would you consider relaxing some 
of the centralized control over facilities and equipment funding and 
provide the laboratory technical directors with more autonomy in the 
utilization of support services at their local institutions, as is 
common practice in world-class research facilities?
    Mr. Mabus. Navy laboratories operate under working capital fund 
financial policies promulgated by the Office of the Under Secretary of 
Defense (Comptroller). Designed to satisfy recurring DOD requirements 
using a buyer-seller approach, the working capital fund already employs 
many best business practices found in the private sector.
    Navy laboratories, like other working capital fund activities, 
procure facilities (other than MILCON projects), equipment, and 
services either through the Capital Investment Program or through 
operating funds, based on expense/investment criteria. Authority 
provided via the Laboratory Revitalization Program, (10 U.S.C. Section 
2805), provides DOD labs more flexibility than other working capital 
fund business areas groups by raising the ceiling for unspecified minor 
construction from $750,000 to $2 million.
    I believe existing policies provide technical directors at Navy 
labs and other working capital fund facilities with sufficient 
authority to successfully manage both financial and operational results 
in a manner comparable to the private sector. However, I support 
continued dialogue on proposals that would enhance existing policy and 
improve financial and operational results at Navy Working Capital Fund 
activities.

                   lab director discretionary funding
    5. Senator Reed. Governor Mabus, the Navy has been most prompt to 
implement recent legislation designed to enhance the mission 
performance of Navy laboratories and warfare centers, which permits the 
direct hire of senior scientists and engineers at the Navy defense 
laboratories. There has also been recent legislation, section 219 of 
the NDAA for Fiscal Year 2009, which permits the Secretary of each 
Service to allocate a small percentage of funds expended at the 
laboratory for the discretionary use by the laboratory director to 
invest in research which he believes is worthy of support. Do you 
intend to likewise act expeditiously on implementing section 219?
    Mr. Mabus. Yes. The Navy is working with the Office of Secretary of 
Defense to implement section 219 initiatives at the Naval Research 
Laboratory and Naval Warfare Centers. These initiatives will contribute 
to the development and sustainment of the world class skills and 
innovation of the science and engineering workforce at the Naval 
Research Laboratory and the Warfare Centers. I support these 
initiatives.
                                 ______
                                 
                Question Submitted by Senator Evan Bayh
                    printed circuit board technology
    6. Senator Bayh. Governor Mabus, the NDAA for Fiscal Year 2007 
directed the Secretary of Defense to submit to the Committees on Armed 
Services of the House and Senate a report on the implementation of the 
recommendations of the National Research Council Committee on 
Manufacturing Trends in Printed Circuit Board (PrCB) Technology. This 
report recommended that the Navy be designated the Executive Agent (EA) 
for PrCB.
    In turn, section 256 of the NDAA for Fiscal Year 2009 mandated that 
the Secretary of Defense designate an EA for PrCB technology. In a 
letter to me dated April 8, 2009, former Under Secretary of Defense for 
Acquisition, Technology, and Logistics John Young indicated that the 
final designation of the Secretary of the Navy as the DOD EA would be 
complete within 90 days.
    If confirmed, how do you plan to fund and resource the EA office 
for PrCB technology?
    Mr. Mabus. Initially, it will be important to determine the 
requirements. The cost necessary to establish the processes associated 
with the DON'S assigned Executive Agent responsibilities will then be 
identified following the determination of these requirements. The costs 
will be included within recommended funding strategies necessary to 
meet requirements associated with development and execution of the 
Printed Circuit Board and interconnect technology roadmap.
                                 ______
                                 
                Question Submitted by Senator Tom Udall
          transition to the next generation enterprise network
    7. Senator Udall. Governor Mabus, the Navy Marine Corps Intranet 
(NMCI) is a program that is an important part of our Nation's security. 
There is some concern that the transition to the Next Generation 
Enterprise Network (NGEN) should be accomplished in a manner that 
``does no harm'' to our sailors and marines. It is my understanding 
that the Department has only recently given guidance on how it intends 
to proceed even though the NMCI contract is due to expire in 2010. Yet 
it is important to ensure this command and control network continues to 
perform as required during the transition to provide all of the Navy's 
information technology (IT) interests beyond 2010. Do you agree or 
disagree?
    Mr. Mabus. I agree.
    Continuity of services during the transition to NGEN is a critical 
priority of the Department of the Navy (DON).
    Today, the DON contracts with EDS, an HP Company, to provide NMCI 
services. The 10-year, $9.3 billion NMCI contract (originally awarded 
in October 2000) has resulted in the largest intranet in the world, 
with over 700,000 users. Given the complexity and magnitude of the 
upcoming contracting and transition activities, the Department has 
developed a comprehensive integrated master schedule to guide critical 
events. The transition strategy is designed to ensure services provided 
under the NMCI contract continue without interruption while working 
toward a competitive contractual environment for NGEN.
    Currently, EDS owns and/or controls the infrastructure, operating 
processes, operating procedures and the technical data associated with 
NMCI. In replacing the NMCI contract, we will require the use of the 
NMCI infrastructure and access to EDS's processes and technical data. 
Therefore, the Department intends to enter into a sole source contract 
with the incumbent to provide the continuity of service. The Department 
will obtain the right to use the current NMCI infrastructure and obtain 
Government Purpose Rights license to the technical data in order to 
fully understand the technical data and processes which will ensure an 
open and competitive environment in the future. On February 18, 2009, 
this approach was approved by the Under Secretary of Defense, 
Acquisition, Technology and Logistics (USD AT&L). He authorized the DON 
to begin negotiations on the Continuity of Services Contract with the 
incumbent. The strategic approach was briefed to industry on March 31, 
2009, providing industry an opportunity to understand the Department's 
approach and provide constructive feedback on the way toward a 
competitive environment.
                                 ______
                                 
               Questions Submitted by Senator John McCain

              fiscal year 2010 presidential budget request
    8. Senator McCain. Governor Mabus, on April 6, 2009, Secretary 
Gates announced how the fiscal year 2010 defense budget request will 
reshape the priorities of the defense establishment. In so doing, he 
announced his decision to cut dramatically or cancel various major 
weapons systems. Are there any aspects of Secretary Gates' plan with 
which you have any difficulty? Please explain.
    Mr. Mabus. We fully support Secretary Gates' plan. In this 
challenging fiscal and budgetary environment, we must look hard at 
every requirement, every development plan, and every capability. We 
must also demand performance from the acquisition community and 
industry. The decisions by Secretary Gates on Navy programs were 
consistent with these requirements, and very prudent.
    In that regard, it is obvious that acquisition processes need 
reform in some very fundamental ways. Regaining control of acquisition 
processes is one of the most complex challenges that we will face. We 
are especially drawn to efforts directed at establishing cost control 
over out-of-control programs and making better use of independent cost 
estimates. The recommendations of Secretary Gates are clear statements 
that past behavior cannot continue.

    9. Senator McCain. Governor Mabus, what is your view of the aspect 
of the plan that permanently changes the aircraft carrier force 
structure to 10 from the current number of 11?
    Mr. Mabus. The Navy remains committed to a force structure of 11 
carriers for the next several decades, a commitment that Secretary 
Gates April budget announcement supports. However, the Navy requests a 
temporary waiver to operate 10 carriers during the period between 
inactivation of USS Enterprise (CVN 65) and the commissioning of USS 
Gerald R. Ford (CVN 78). During this 33 months period, the Navy 
assesses it can meet operational commitments by adjusting operational 
and maintenance schedules.

    10. Senator McCain. Governor Mabus, what is your view of the aspect 
of the plan that commits, to the exclusion of procuring other tactical 
fighter platforms, to the Joint Strike Fighter (JSF) program in light 
of the development and technology risk still associated with that 
program?
    Mr. Mabus. The Department of the Navy believes that JSF development 
and technology risk are manageable. The JSF Program Office is providing 
program-wide schedule and technology risk analysis in conjunction with 
periodic Defense Acquisition Board reviews. The timing of these reviews 
will ensure the analysis is available to support key acquisition 
milestone decisions and budget discussions.
    During the transition to the JSF, the Department of the Navy is 
exploring a range of options to meet its continuing strike fighter 
requirements. These include supporting legacy aircraft; SLEPing some 
number of F/A-18 A-Ds; and procuring more F/A-18 E/F Super Hornets.
    In this regard, the Navy is procuring F/A-18E/F Super Hornets in 
fiscal year 2010 via a single year procurement in PB10. The Department 
will continue to assess its TACAIR force structure and inventory 
requirements through this summer's Quadrennial Defense Review (QDR).

    11. Senator McCain. Governor Mabus, in the budget blueprint that 
supports the fiscal year 2010 presidential budget request, the 
administration committed to ``set[ting] realistic requirements and 
stick[ing] to them and incorporat[ing] `best practices' by not allowing 
programs to proceed from one stage of the acquisition cycle to the next 
until they have achieved the maturity to clearly lower the risk of cost 
growth and schedule slippage.'' If confirmed, what steps, if any, would 
you recommend to help ensure that the Department makes good on this 
commitment?
    Mr. Mabus. We fully support the increased emphasis on upfront 
planning as specified in the 2008 changes made to DOD 5000.2 in the 
NDAA for Fiscal Year 2008. The defense-acquisition process needs 
improvement in the areas of systems engineering, developmental test and 
evaluation, technological maturity, and cost estimation, and that 
changes are needed to strengthen a culture of acquisition excellence in 
the DOD. We support the administration's commitment to making trade-
offs among cost, schedule, and performance to significantly reduce cost 
growth in major defense acquisition programs. We will also ensure that 
requirements are defined and understood and that technologies are 
mature prior to entering system development, thus reducing risks to 
both cost and schedule.

                       acquisition reform policy
    12. Senator McCain. Governor Mabus, what are your views regarding 
the need to reform the process by which the Navy acquires major weapons 
systems?
    Mr. Mabus. We support the ``Weapons Systems Acquisition Reform Act 
of 2009.'' We fully agree with an emphasis on sound cost estimation, 
systems engineering, and performance assessment upfront to establish a 
culture of acquisition excellence. These are all guiding principles 
that underpin our vision as an enterprise committed to getting timely, 
effective, and affordable solutions to our warfighters. A number of 
acquisition process changes have recently been initiated that will take 
some time to evaluate. However, we believe the emphasis on due 
diligence during both the requirements and technology development 
stages of any program should improve acquisition performance. We also 
intend to stress and enforce discipline of all established processes.

    13. Senator McCain. Governor Mabus, if confirmed, what steps, if 
any, would you recommend to improve the acquisition process?
    Mr. Mabus. We are aware of the Department of Navy's two-pass/six-
gate acquisition process and will personally review its effectiveness 
in supporting program execution and oversight. We need to put more 
emphasis in the acquisition process on solid cost estimation, risk 
tolerant schedules, and understanding where the technical risks are. We 
also will insist on realistic plans for mitigating those risks. 
Moreover, we both recognize and accept that when new technical problems 
are identified we cannot hold cost and schedule constant. We believe 
the emphasis on due diligence during both the requirements and 
technology development stages of any program should improve acquisition 
performance. We also intend to stress and enforce discipline of all 
established processes.
    In addition, the health of the defense and commercial industrial 
base are critical to our national security. We will support 
collaborative efforts between the government and industry in advancing 
the state-of-the-art in science and technology in both basic and 
applied research. We will also support technology development in all 
areas that have potential military utility for the warfighter, to 
deliver high performance weapons on target, more effectively, 
efficiently, and at reasonable cost to the taxpayer.

    14. Senator McCain. Governor Mabus, department-wide, nearly half of 
the DOD's 95 largest acquisition programs have exceeded the Nunn-
McCurdy cost growth standards established in Section 2433 of Title 10, 
U.S. Code. The cost overruns on these major defense acquisition 
programs now total $295 billion over the original program estimates, 
even though the Department has cut unit quantities and reduced 
performance expectations on many programs in an effort to hold costs 
down. Many of those programs are being executed by the Navy. What 
steps, if any and if confirmed, would you take to address the out-of-
control cost growth on the Navy's major defense acquisition programs?
    Mr. Mabus. We believe increased collaboration between industry and 
Government early in the program formulation stage will ensure there is 
a realistic balance. We must establish realistic baselines before 
entering into system development which can only be accomplished with a 
thorough understanding of warfighting requirements and the maturing of 
technologies early in the process. Overestimating performance leads us 
to proceeding with immature technologies while underestimating cost 
leads us to compressing development efforts. Together these dynamics 
lead us to taking on more risk, which often leads to cost increases and 
schedule delays.
    We will continue the process initiated last year to rebuild the 
Department of the Navy Cost Estimating Enterprise which was based upon 
an analysis of gaps within the existing structure. This effort 
culminated with the release of an instruction which reestablished the 
Naval Center for Cost Analysis, enabled greater insight into the costs 
of Major Defense Acquisition programs, and focused efforts on 
rebuilding the Naval System Commands Cost Analysis centers. We will 
continue this effort to ensure the Department meets increased demands 
across all cost estimating functions including Earned Value Management, 
Operating and Support analysis, and greater investment cost rigor in 
the early life of the Department's acquisition programs. The DON Cost 
Estimating community is continuing to take steps to rebuild and 
rebalance the core cost estimating capabilities within the government 
to better establish realistic cost analysis.

    15. Senator McCain. Governor Mabus, what principles will guide your 
thinking on whether to recommend terminating a program that has 
experienced critical cost growth under Nunn-McCurdy?
    Mr. Mabus. The principles that will guide our decisions will be the 
Nunn-McCurdy certifications as modified by the Weapons Systems 
Acquisition Reform Act of 2009 on whether:

         The root cause of the program's Nunn-McCurdy breach is 
        properly identified, understood, and correctable;
         The program is essential to national security;
         No alternative will provide equal or greater capability at 
        less cost;
         New program or unit cost estimates are reasonable; and
         Management structure for program is adequate to manage and 
        control unit costs.

    We will use these certifications to evaluate a program for any 
significant breach of its baseline and not just if it's a unit cost 
issue.

    16. Senator McCain. Governor Mabus, recent congressional and DOD 
initiatives have attempted to reduce technical and performance risks 
associated with developing and producing major defense acquisition 
programs, including ships, so as to minimize the need for cost-
reimbursable contracts. Do you think that the Department should move 
towards more fixed price-type contracting in developing or procuring 
major defense acquisition programs? Why or why not?
    Mr. Mabus. Yes. We are committed to a thorough analysis that 
ensures the right contract type at the right time that balances risk 
and ensures best value to the government. We fully support the DOD 
policy to examine the increased use of fixed-price type contracts in 
the procurement of major defense acquisition programs.

            s.454, the levin-mccain acquisition reform bill
    17. Senator McCain. Governor Mabus, recently, Chairman Levin and I 
sponsored acquisition reform legislation, titled: ``Weapon Systems 
Acquisition Reform Act of 2009.'' The legislation recognized that vital 
to reforming how we buy the biggest and most expensive weapons systems 
is to start them off right--by emphasizing sound systems engineering so 
that we can obtain reliable technological readiness assessments and 
independent cost estimates up front. The more we understand technology 
risk early and manage that risk, the less likely that such risk will 
present themselves later in the acquisition process and blow out costs. 
What is your assessment of that bill, and did we get anything wrong?
    Mr. Mabus. We strongly support the spirit and intent of the 
``Weapons Systems Acquisition Reform Act of 2009.'' We agree that the 
defense-acquisition process needs improvement in the areas of systems 
engineering, developmental test and evaluation, technological maturity, 
and cost estimation, and that changes are needed to strengthen a 
culture of acquisition excellence in the DOD. The Department of the 
Navy is committed to making trade-offs among cost, schedule, and 
performance to significantly reduce cost growth in major defense 
acquisition programs. The Department of the Navy (DON) is working 
closely with DOD to develop a common approach to implementing the 
requirements. DON is already involved with acquisition process 
improvements, such as implementing the two-pass/six-gate governance in 
2008, and is committed and working diligently to implement required 
improvements that will require a longer term implementation cycle.

                           tactical aviation
    18. Senator McCain. Governor Mabus, the Navy is facing a potential 
shortfall of strike fighter aircraft in the next decade even if the 
Navy continues to buy F/A-18E/F aircraft and F-35 JSF aircraft at the 
rate projected in last year's budget. What is your assessment of this 
situation and what actions should the Navy take to address this 
potential shortfall?
    Mr. Mabus. The Navy and Marine Corps share a common inventory of 
623 legacy F/A-18 A-D aircraft. Navy and Marine Corps integrate F/A-18 
A-C strike fighter squadrons into carrier air wings and Marine air 
groups under the charter of TACAIR Integration (TAI). There are four 
considerations to mitigate negative strike fighter inventory trends:

         1. Maintain wholeness of the JSF program. Department strike 
        fighter inventory projections are based on the following 
        assumptions: the F-35B will reach Initial Operational 
        Capability (IOC) in 2012 and F-35C will reach IOC in 2015; and 
        that JSF will deliver at planned quantities/cost. Any program 
        slips, major costs increases, or decreases to planned 
        procurement quantities may exacerbate the DON strike fighter 
        shortfall.
         2. Extending the service life of F/A-18A-D Hornets. Over half 
        of the Department of the Navy's Hornets are beyond 6,000 flight 
        hours, towards a currently approved 8,600 flight hour service 
        life. Extending the service life of as many as 300 of these 
        aircraft is an essential element to maintaining available DON 
        strike fighter inventory through transition to JSF. Analysis is 
        ongoing within the Department to refine cost estimates and the 
        process for executing this service life extension.
         3. Continued sustainment and support of currently fielded 
        legacy aircraft (AV-8, EA-6B, F/A-18 A-D) through transition to 
        JSF. These aircraft are the bulk of the Department's current 
        TACAIR inventory and require continuous support--including 
        program related engineering and logistics--though the end of 
        transition to JSF, currently envisioned to be out to 2023.
         4. Additional investment in F/A-18E/F Block II Super Hornet 
        procurement. In PB 2010, F/A-18E/Fs are budgeted for single 
        year procurement in fiscal year 2010. Future procurements are 
        being considered in the 2009 QDR.

    The Department will re-assess force structure requirements and 
inventory investments this summer during the QDR.

    19. Senator McCain. Governor Mabus, in your view, should the Navy 
continue to operate the 10 carrier air wings that support the current 
fleet of 11 aircraft carriers, or should the air wing force structure 
be modified to reflect a planned reduction to a permanent level of 10 
aircraft carriers?
    Mr. Mabus. The Navy remains committed to a force structure of 11 
carriers and 10 air wings for the next several decades. However, 
between the decommissioning of USS Enterprise and the commissioning of 
USS Ford, the Navy requests to temporarily decrease its aircraft 
carrier fleet from 11 to 10 ships. During this 33 month period, the 
Navy will continue to require and utilize each of its 10 carrier air 
wings to meet its deployment schedule and to maintain its ability to 
respond to emergent operational requirements.

    20. Senator McCain. Governor Mabus, alternatives for maintaining 
sufficient strike assets are limited if there are new schedule 
difficulties with the JSF program. It appears that the Navy's options 
for extending the service life of existing F/A-18 aircraft are limited 
and procurement of additional F/A-18 aircraft beyond those planned last 
year may be more difficult with the Secretary of Defense's recent 
announcement of a reduction of nine F/A-18 aircraft from the number 
originally planned for the fiscal year 2010 program. What other 
potential alternatives do you see for maintaining sufficient strike 
assets if there were any additional slippage in the initial operating 
capability date for the F-35 JSF?
    Mr. Mabus. The Department of the Navy is closely monitoring the JSF 
program. JSF is currently scheduled for an F-35B IOC of 2012 and an F-
35C IOC of 2015. The Department is refining cost estimates and process 
for extending the service life for as many as 300 legacy F/A-18 A-D 
aircraft from 8,600 flight hours to 10,000 flight hours through, a 
service life extension program--service life extension is completely 
within engineering feasibility for this number of aircraft.
    Maintaining JSF wholeness, continued support of legacy aircraft, 
Service Life Extension Program (SLEP) of F/A-18 A-D and continued 
procurement of F/A-18E/F are options being pursued to provide the 
strike fighter inventory necessary to support the Department of the 
Navy's force structure requirements.
    The Navy is procuring F/A-18E/F Super Hornets in fiscal year 2010 
via a single year procurement in PB 2010. The Department will continue 
to assess its TACAIR force structure and inventory requirements through 
this summer's QDR.

    21. Senator McCain. Governor Mabus, is it a viable solution to 
consider purchasing additional F/A-18 Super Hornets, the only new 
strike fighter aircraft in production? If not, how will the Navy expect 
to solve this shortfall?
    Mr. Mabus. Maintaining Joint Strike Fighter wholeness, continued 
support of legacy aircraft, SLEP of F/A-18 A-D and continued 
procurement of F/A-18E/F are options to provide the strike fighter 
inventory necessary to support the Department of the Navy's force 
structure requirements.
    The Navy is procuring F/A-18E/F Super Hornets in fiscal year 2010 
via a single year procurement in PB10. The Department will continue to 
assess its TACAIR force structure and inventory requirements through 
this summer's QDR.

                   f-35 joint strike fighter program
    22. Senator McCain. Governor Mabus, the Services are planning on 
purchasing approximately 2,450 JSFs at a cost of over $300 billion, a 
sum that reflects a cost growth of nearly 47 percent beyond original 
2002 estimates. Recently, the Government Accountability Office issued a 
report on the JSF program that was critical of its past cost overruns 
and schedule slips, and predicted that development will cost more and 
take longer than what has been reported to Congress. In November 2008, 
a Pentagon Joint Estimating Team reportedly said the JSF program would 
require an additional 2 years of testing and would need another $15 
billion to cover new development costs.
    If the F-35 program costs continue to significantly increase and 
the F-35 development does not go as well as promised--draining 
resources from other priority programs that are needed by the Navy--
what actions would you recommend the Department take to remedy strike-
fighter shortfalls and preserve its limited procurement base?
    Mr. Mabus. The Department of the Navy believes that JSF development 
and technology risk are manageable. The JSF Team closely monitors all 
risks and provides program-wide schedule and technology risk analysis 
in conjunction with periodic Defense Acquisition Board reviews. The 
timing of these reviews will ensure the analysis is available to 
support key acquisition milestone decisions and budget discussions.
    The Navy and Marine Corps share a common inventory of 623 legacy F/
A-18 A-D aircraft. Navy and Marine Corps integrate F/A-18 A-C strike 
fighter squadrons into carrier air wings and Marine air groups under 
the charter of TACAIR Integration (TAI). There are four considerations 
to mitigate negative strike fighter inventory trends:

         1. Maintain wholeness of the JSF program. Department strike 
        fighter inventory projections consider that F-35B will IOC in 
        2012 and F-35C will IOC in 2015, and that JSF will deliver at 
        planned quantities, as a foundation. The Department needs JSF 
        to deliver planned quantities at a delivery rate that supports 
        these planned initial operational capability dates. Any further 
        slips or decreases to planned procurement quantities further 
        exacerbates future DON strike fighter inventory issues.
         2. Extending the service life of F/A-18 A-D Hornets. Over half 
        of the DON Hornets are beyond 6,000 flight hours, towards a 
        currently approved 8,600 flight hour service life. Extending 
        the service life of as many as 300 of these aircraft is an 
        essential element to maintaining available DON strike fighter 
        inventory through transition to JSF. Analysis is ongoing within 
        the Department to refine cost estimates and the process for 
        executing this service life extension.
         3. Continued sustainment and support of currently fielded 
        legacy aircraft (AV-8, EA-6B, F/A-18 A-D) through transition to 
        JSF. These aircraft are the bulk of the Department's current 
        TACAIR inventory and require continuous support--including 
        program related engineering and logistics--though the end of 
        transition to JSF, currently envisioned to be out to 2023.
         4. Additional investment in F/A-18E/F Block II Super Hornet 
        procurement. In PB 10, F/A-18E/F are budgeted for single year 
        procurement in fiscal year 2010.

    The Department of the Navy will continue to guide JSF development 
and update assessments of costs and scheduled deliveries to the fleet. 
We will monitor F/A-18 A-D flight hours flown and update cost estimates 
for needed life extensions and sustainment. Procurement of additional 
F/A-18 E/F Super Hornets will continue to be a viable alternative in 
the near term. All these factors will be taken into account when the 
Department determines how best to satisfy the strike fighter force 
structure needs established in the QDR.

                           shipbuilding plan
    23. Senator McCain. Governor Mabus, the most recent Navy 30-year 
shipbuilding plan included arguably over-optimistic assumptions about 
the unit costs of ships and excluded any funding for a replacement for 
the current fleet of Trident ballistic missile submarines. Do you agree 
that the 30-year shipbuilding plan should reflect realistic cost 
estimates and include all important shipbuilding efforts for that 
document to be useful for decisionmakers?
    Mr. Mabus. The 30-year shipbuilding plan, as submitted to Congress, 
reflects the best estimates for the ships included in the plan. The 
near-term section of the future plan reflects cost estimates that are 
predicted, in most cases, on existing production lines for ships either 
currently being procured or very near the completion of contract 
negotiations for their procurement. The period covered by about 10-20 
years in the future, largely includes what we expect to be the economic 
conditions that the shipbuilding industry will face and this too is 
based on our best understanding of the labor rates and material cost 
escalation that this industry will incur. The period beyond about 20 
years, out to the end of the report, is a planning range and the costs 
included in this part of the report reflect those costs that the Navy 
believes to be affordable for the ship types that will be procured in 
the period. Since there are essentially no designs to use as a basis 
for the cost models, we believe that projecting an affordable cost for 
these ships is the appropriate metric to use. This introduces 
discipline in the expectations for what these ships should be able to 
do since it is unlikely that there would be infinite resources 
available for their procurement.
    A majority of the ships in the 30-year shipbuilding plan have not 
yet been designed and therefore cost must be based on the best estimate 
of what the new ship will be including new technology, and appropriate 
hull size and propulsion system. As more accurate cost estimates are 
determined in future ship development, the Navy will adjust the average 
annual investment objective or revisit individual ship and/or force 
warfighting requirements as appropriate. Navy's goal in producing the 
shipbuilding plan is always to provide a balanced capability, with 
acceptable levels of risk that provides stable industry demand at 
reasonable cost.
    In addition to the National Security Strategy, the statutory 
guidelines required the report to reflect the QDR. The latest QDR is 
ongoing in parallel with the National Security Strategy work. Also, the 
Nuclear Posture Review, which has direct bearing on the numbers of 
strategic ballistic missile submarines, is due for completion incident 
with submission of the fiscal year 2011 budget. In addition, a 
Ballistic Missile Defense Review is ongoing and is also due for 
completion with the fiscal year 2011 budget. These efforts will likely 
have a substantive impact on the Navy's force structure requirements.

    24. Senator McCain. Governor Mabus, in your view, what level of 
funding will the Navy need to execute its 30-year shipbuilding plan, 
and considering competing priorities, do you believe this level of 
funding is realistic?
    Mr. Mabus. As the National Security Strategy is due for release 
this summer, the Navy considers it prudent to defer its fiscal year 
2010 report and submit its next report concurrent with the President's 
fiscal year 2011 budget.
    In addition to the National Security Strategy, the statutory 
guidelines required the report to reflect the QDR. The latest QDR is 
ongoing in parallel with the National Security Strategy work. Also, the 
Nuclear Posture Review, which has direct bearing on the numbers of 
strategic ballistic missile submarines, is due for completion incident 
with submission of the fiscal year 2011 budget. In addition, a 
Ballistic Missile Defense Review is ongoing and is also due for 
completion with the fiscal year 2011 budget. These efforts will likely 
have a substantive impact on the Navy's force structure requirements.
    The President's budget submission for fiscal year 2010 represents 
the best overall balance between procurement for future ship and 
aircraft capability with the resources necessary to meet operational 
requirements and affordability.

                           aircraft carriers
    25. Senator McCain. Governor Mabus, under his recently announced 
budget plan, the Secretary of Defense proposed that only 10 aircraft 
carriers be operational. But, we may need 11: the slip in the delivery 
of the CVN 78 (USS Gerald R. Ford) to 2015 created a 2-year gap between 
the scheduled decommissioning of the USS Enterprise and the 
availability of a new aircraft carrier. That gap could be longer 
because of technical difficulties with that carrier's electromagnetic 
aircraft launch system (EMALS). What is your view of the plan that 
Secretary Gates announced to permanently change the aircraft carrier 
force structure to 10 from the current number of 11?
    Mr. Mabus. The Navy is currently committed to an 11 carrier force 
structure for the next several decades, and this commitment was 
supported by Secretary Gates during his April budget announcement. 
However, as you have pointed out, the Navy requires temporary 
legislation to operate with 10 carriers during the period between 
inactivation of USS Enterprise (CVN 65) in November 2012 and the 
delivery of Gerald R. Ford (CVN 78) in September 2015. Navy assesses it 
can meet operational commitments during this approximately 33-month gap 
by adjusting both carrier and air wing maintenance and operational 
schedules. The carrier force structure, along with the entire 
battleforce, is being considered in the QDR. EMALS development is 
currently on track to meet the planned delivery of CVN 78 in September 
2015.

    26. Senator McCain. Governor Mabus, in your view, should DOD retire 
another aircraft carrier when the USS Gerald R. Ford is delivered to 
keep the carrier force structure at 10 carriers?
    Mr. Mabus. The Navy has no current plans to retire an aircraft 
carrier upon delivery of USS Gerald R. Ford (CVN 78). The Navy is 
currently committed to an 11 carrier force structure for the next 
several decades, and this commitment was supported by Secretary Gates 
during his April budget announcement. However, as you have pointed out, 
the Navy requires temporary legislation to operate with 10 carriers 
during the period between inactivation of USS Enterprise (CVN 65) in 
November 2012 and the delivery of Gerald R. Ford (CVN 78) in September 
2015. Navy assesses it can meet operational commitments during this 
approximately 33-month gap by adjusting both carrier and air wing 
maintenance and operational schedules. The carrier force structure, 
along with the entire battleforce, is being considered in the QDR.

    27. Senator McCain. Governor Mabus, do you believe that the 
requirements of the combatant commanders for an aircraft carrier 
presence be met with only 10 operational aircraft carriers?
    Mr. Mabus. The Navy can sustain current combatant command (COCOM) 
demand for carrier presence with 10 operational aircraft carriers for a 
relatively short and defined period of time with moderate risks by 
leveraging the inherent flexibility of the Fleet Response Plan. Navy 
will continue to evaluate projected COCOM demand and use the QDR and 
other strategic planning processes to match carrier force structure to 
projected demand; this requirement will be based on fiscal and 
operational risk.

    submarine strategic weapons programs cost reimbursable contracts
    28. Senator McCain. Governor Mabus, for over 30 years the Navy has 
manufactured and sustained its Trident submarine and other related 
weapon systems under a cost-reimbursable contract. This is unacceptable 
to me. After a 30-year procurement history, costs and design are (or 
should be) stable and enough is (or should be) known, about technology 
risk associated with those programs so that the Navy should be 
contracting here on a fixed-price--not cost-reimbursable--basis. 
However, the Navy's Strategic Weapons Programs (SSP), which 
manufactures and sustains logistical support for nuclear submarines, 
continues to award--inappropriately, in my view--multi-hundred million-
dollar cost-plus contracts for, among other things, the production of 
the D-5 Trident Missile System. Why is there this anomaly with the 
Navy's submarine programs?
    Mr. Mabus. As the Fleet Ballistic Missile Program has matured over 
the last four decades, SSP has developed and implemented an acquisition 
strategy that maintains a primary focus on safety and reliability, 
while managing cost risk at or below budget. Because of the strategic 
importance of the system, any deviation from this successful 
acquisition strategy could engender unnecessary unintended 
consequences, and jeopardize the safety and reliability of the weapon. 
At inception, during concept formulation and advanced development, Cost 
Plus Fixed Fee contracts were used, placing maximum cost risk on the 
Government, due to the overall program uncertainty and rapidly changing 
requirements. As the program matured into full scale development, the 
contract type moved along a continuum to Cost Plus Incentive Fee with a 
conservative share ratio of 90/10 or 80/20. Eventually, as the 
requirements stabilized the share ratio was increased to 70/30 for 
initial production activities and 50/50 for mature production efforts.
    SSP has committed to transition the mature full-rate production 
effort for TRIDENT II D5 Subsystems to fixed-price contract beginning 
in fiscal year 2011. We anticipate that this will result in 
approximately 50 percent of all contracted dollars being fixed price. 
SSP is developing the transition plan for mature full rate production 
items including the appropriate contractual and acquisition reviews to 
support completion by 2011. As always, we will continue to monitor and 
manage technical risk throughout this transition and make any 
adjustments that are deemed necessary to ensure we maintain the 
program's preeminent responsibility for safety and reliability.

    29. Senator McCain. Governor Mabus, will you look into this 
contracting folly and ensure me that the Navy will begin awarding 
contracts on this submarine program and other SSPs under fixed price-
type contracts, where appropriate?
    Mr. Mabus. SSP has committed to transition the mature full-rate 
production effort for TRIDENT II D5 Subsystems to fixed price contract 
beginning in fiscal year 2011. We anticipate that will result in 
approximately 50 percent of all contracted dollars being fixed price. 
SSP is developing the transition plan for mature full rate production 
items including the appropriate contractual and acquisition reviews to 
support completion by 2011. As always, we will continue to monitor and 
manage technical risk throughout this transition and make any 
adjustments that are deemed necessary to ensure we maintain the 
program's preeminent responsibility for safety and reliability.
                                 ______
                                 
               Questions Submitted by Senator John Thune
            strategic dispersal of the nuclear carrier fleet
    30. Senator Thune. Governor Mabus, the Navy has undergone and 
completed a Final Environmental Impact Statement. The Secretary of the 
Navy, in consultation with the Chief of Naval Operations, signed a 
Record of Decision to develop a second nuclear-carrier homeport on the 
East Coast on January 14, 2009, and determined that it is in the best 
national security interest of the Nation to homeport a nuclear powered 
aircraft carrier at Naval Station Mayport. During your Senate Armed 
Services Committee hearing on April 28, 2009, understanding the 
sensitivities surrounding this matter, I asked you what you thought of 
strategically dispersing our carrier fleet on the east coast and 
whether or not you agreed with the Navy's requirement to make Mayport 
nuclear ready and continue the long-term practice of strategic 
dispersal. At the time, you answered that you understood the issue and 
that it was to be made part of the QDR but that you did not have enough 
information to provide an answer as to how you felt about the Navy's 
requirement. This was the culmination of 2\1/2\ years of effort to 
ensure compliance with environmental regulations as well as strategic 
needs. What is your view of strategic dispersal?
    Mr. Mabus. I have an appreciation of the long history and 
importance of strategic dispersal for the Navy. I believe that 
strategic dispersal will play an important role in global posture 
discussions during the upcoming QDR.

    31. Senator Thune. Governor Mabus, do you understand its importance 
to the Navy?
    Mr. Mabus. I have an appreciation of the long history and 
importance of strategic dispersal for the Navy. I believe that 
strategic dispersal will play an important role in global posture 
discussions during the upcoming QDR.

    32. Senator Thune. Governor Mabus, how do you view this Navy 
requirement based on the information you have?
    Mr. Mabus. I have an appreciation of the long history and 
importance of strategic dispersal for the Navy. I believe that 
strategic dispersal will play an important role in global posture 
discussions during the upcoming QDR.

    33. Senator Thune. Governor Mabus, what weight will you attribute 
the recommendations of senior uniformed leaders of the Navy?
    Mr. Mabus. Our senior uniformed leaders have significant experience 
and are well respected. If confirmed, I will vigorously seek their 
opinions on all matters associated with the manning, training and 
equipping of our Naval Forces.

    34. Senator Thune. Governor Mabus, do you believe it is important 
to proceed with planning and design of the nuclear maintenance facility 
at Naval Station Mayport?
    Mr. Mabus. It is my understanding that additional decisions beyond 
the recommended dredging and pier maintenance at NS Mayport will be 
made during the upcoming QDR. I do not have enough information on the 
planning and design of a nuclear maintenance facility at NS Mayport to 
answer this question, but if confirmed, I intend to look at this issue 
and actively participate in the QDR.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                        naval fleet requirements
    35. Senator Collins. Governor Mabus, I appreciated the opportunity 
to discuss with you the impressive contributions that the State of 
Maine has made to our Navy through the Portsmouth Naval Shipyard (PNSY) 
in Kittery, Bath Iron Works (BIW) in Bath, and the Brunswick Naval Air 
Station in Brunswick, as well as several other defense contractors. 
These contributions from PNSY and BIW depend on a sufficient and steady 
workload to maintain the skilled workforce critical to preserving the 
defense industrial base. You have seen first-hand in Mississippi how 
difficult it is for a shipyard to recover when it loses skilled 
workers. Could you comment on what actions you will take to ensure a 
strong industrial base for building surface combatants, constructing, 
overhauling, and modernizing submarines, and otherwise ensuring that 
the Navy has a fleet that meets its requirements?
    Mr. Mabus. The Department recognizes that low levels of 
shipbuilding activity introduce challenges and inefficiencies at 
shipyards. The Navy has developed a long term shipbuilding procurement 
plan that provides the foundation for future planning within the 
shipbuilding industry. The Navy continues to work with Congress to 
enact this strategy and where appropriate, have proposed multiyear 
procurements which provide further stability and result in cost 
savings. Reducing volatility, through multiyear procurements and a 
stable shipbuilding procurement profile, enables industry leaders to 
make informed decisions regarding current operations, employment, 
infrastructure, and future capital investments.

                       ballistic missile threats
    36. Senator Collins. Governor Mabus, ballistic missiles in the 
hands of rogue states or non-state actors present a serious security 
threat to this country. North Korea's recent missile launch coupled 
with Iran's ballistic missile inventory and continued efforts to seek a 
nuclear capability reinforce the need to maintain a robust and layered 
missile defense capability. Aegis cruisers and destroyers provide a 
critical element to that capability from the sea. Secretary Gates has 
proposed adding missile defense capabilities to six Aegis ships next 
year, and plans to spend an additional $700 million on the SM-3 missile 
and other missile defense systems. What do you see as the future role 
of front-line surface combatants in defending our forces and our 
Homeland from potential threats posed by ballistic missiles?
    Mr. Mabus. Navy cruisers and destroyers are multi-mission platforms 
which perform a variety of missions, including but not limited to: 
anti-air, anti-submarine, anti-surface, and Ballistic Missile Defense 
(BMD). Aegis BMD contributes to homeland defense through long range 
surveillance and tracking and Aegis BMD-capable ships can conduct both 
midcourse and terminal engagements of short and medium range ballistic 
missiles in support of regional and theater defense. While our current 
fleet has no capability against the longer range intermediate and ICBM 
threats, the development of future Aegis baselines and Standard Missile 
(SM-3) will address these capabilities within the next 10 years.
    BMD is a core Navy mission directly contributing to our overarching 
missions of deterrence, power projection and sea control. Today, Navy 
Aegis BMD capability is currently installed on 18 ships: three guided 
missile cruisers and 15 guided missile destroyers. Additionally, we are 
in the process of outfitting three more East Coast ships with BMD 
capability, increasing our numbers to 21 BMD capable ships. Aegis 
Modernization plan, beginning in 2012, will over two decades outfit 
Aegis Destroyers and 15 of 22 Aegis Cruisers with BMD capability 
providing combatant commanders an in-stride BMD capability with 
regularly deploying surface combatants.
    Maritime ballistic missile defense will enhance deterrence by 
providing an umbrella of protection to forward-deployed forces, friends 
and allies, while contributing to the larger architecture planned for 
defense of the United States. This is particularly important in light 
of the rapidly evolving and proliferating ballistic and advanced cruise 
missile threat.
    In addition, our partners and allies, principally Japan, have an 
increasingly important role in theater and regional defense as they 
gain their own capability. Through cooperative programs and 
partnerships with our allies, their BMD capable assets will provide an 
added ``layer'' of protection against the growing threat of ballistic 
missiles.

                      surface ship structure plans
    37. Senator Collins. Governor Mabus, despite economic recessions, 
both China and Russia are increasing defense spending in an effort to 
modernize and transform their militaries. China has indicated its 
intent to construct its first aircraft carrier, and continues to 
develop anti-ship missiles and quieter and more capable submarines. 
Media reports indicate Russia's nearly 26 percent increase in defense 
spending this year will go toward transforming its military into a more 
effective fighting force. What are your views on our surface ship 
structure plan?
    Mr. Mabus. The ongoing QDR, NPR, BMD Review, and Space Review 
currently in progress, will determine the shape of the Navy's future. 
While the demands placed on the Navy for forces by the combatant 
commanders and by our Presence, security cooperation and humanitarian 
assistance missions continue to be significant; we have been largely 
able to meet these demands with the force we have in commission today. 
The 313 force construct is both a total inventory of ships and a 
specific mix of ships in that total and is focused on the threats that 
were envisioned for the 2020 timeframe.
    Since completing the Force Structure Assessment that led to the 313 
requirement, myriad changes have been realized in the strategic 
security environment around the globe. There has been a burgeoning 
proliferation of advanced cruise missiles, submarine technology is 
getting ever more difficult to counter and ballistic missile 
capabilities are becoming more precise and lethal. All of these 
challenges have required us to continually reassess the capability of 
the ships we are designing, the capacity of the ships we are procuring 
and the effectiveness of the ships we have in our current inventory. 
While there are always improvements that could be made in any of these 
areas to reduce the overall risk to the force today, as well as in the 
future, we believe the ships we are buying and those we continue to 
modernize in our existing inventory are up to the task of meeting the 
Navy's missions in the foreseeable future. Should the Security Strategy 
change or the QDR shift our priorities and responsibilities, any 
changes required to our plans will be included in our next budget 
submission and long-range shipbuilding plan.
                                 ______
                                 
    [The nomination reference of Hon. Raymond E. Mabus, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Raymond Edwin Mabus, Jr., of Mississippi, to be Secretary of the 
Navy, vice Donald C. Winter.
                                 ______
                                 
    [The biographical sketch of Raymond E. Mabus, Jr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Raymond E. Mabus, Jr.
    Ray Mabus is a native of Ackerman, MS, and received a Bachelor's 
Degree from the University of Mississippi, a Master's Degree from Johns 
Hopkins University, and a Law Degree from Harvard Law School. He served 
as Governor of Mississippi (1988-1992), Ambassador to the Kingdom of 
Saudi Arabia (1994-1996), and as Chairman and Chief Executive Officer 
(CEO) of Foamex (2006-2007), a large manufacturing company. As the 
youngest Governor of Mississippi in more than 100 years at the time of 
his election, Governor Mabus stressed education and job creation. He 
passed B.E.S.T. (Better Education for Success Tomorrow), one of the 
most comprehensive education reform programs in America, and was named 
one of Fortune Magazine's top 10 education governors.
    During his tenure as Ambassador, a crisis with Iraq was 
successfully averted and Saudi Arabia officially abandoned the boycott 
of United States businesses that trade with Israel. He was chosen CEO 
of Foamex to help lead the company out of bankruptcy and less than 9 
months after his appointment; Foamex successfully emerged from Chapter 
11. Governor Mabus has been awarded the U.S. Department of Defense 
Distinguished Public Service Award, the U.S. Army's Distinguished 
Civilian Service Award, the Martin Luther King Social Responsibility 
Award from the King Center in Atlanta, the National Wildlife Federation 
Conservation Achievement Award, the King Abdul Aziz Award from the 
Kingdom of Saudi Arabia, and the Mississippi Association of Educators' 
Friend of Education Award.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Raymond 
E. Mabus, Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Raymond Edwin Mabus, Jr.

    2. Position to which nominated:
    Secretary of the Navy.

    3. Date of nomination:
    April 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 11, 1948; Starkville, MS.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Lynne Marie Horecky (Maiden Name).

    7. Names and ages of children:
    Elisabeth Hamilton Mabus, 18; Anne Gates Mabus, 16; Kate Elizabeth 
Musgrove, 8 (stepdaughter).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Ackerman High School, Ackerman, MS, 1962-1966, High School Diploma, 
1966.
    University of Mississippi, 1966-1969, Bachelor of Arts, 1969.
    The Johns Hopkins University, 1969-1970, Master of Arts, 1971.
    Harvard Law School, 1972-1976, Juris Doctorate, 1976.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Board Member, Wincup, Inc., Stone Mountain, GA, 01/08-12/08.
    Board Member, Hines Horticulture, Chicago, IL, 07/07-01/09.
    Board Member, Enersys, Inc., Reading, PA, 08/07-present.
    Board Member, (09/00-04/07), Chairman (04/04-04/07), CEO (06/06-04/
07), Foamex International, Media, PA.
    Board Member, Strategic Partnerships, Alexandria, VA, 05/03-
present.
    President and Board member, Frontline Global Resources, Alexandria, 
VA, 04/00-05/03.
    Board Member, International Management and Development, Alexandria, 
VA, 07/96-04/00
    Board Member, Fusion Telecommunications, NewYork, NY, 04/99-present
    Board Member, Eggs Overnight, Stone Mountain, GA, 06/08-present
    Board Member, Citizens International, Alexandria, VA, 07/00-present
    Board Member, Thomas Engine, Boulder, CO, 04/04-08/07
    Board Member, Kroll, Inc., New York, NY, 10/96-02/05
    Board Member, Friede Goldman, Halter, Jackson, MS, 10/96-05/01
    Consultant, Sikorsky, Stratford, CT, 03/00-01/02.
    Consultant, Raytheon, Waltham, MA, 10/96-01/00.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Law Clerk for John Godbold, U.S. Court of Appeals, 5th Circuit 
Court, Montgomery, AL (1976-1977).
    Legal Counsel, Cotton Subcommittee, House Committee on Agriculture 
(1977-1978).
    Legal Counsel to the Governor of Mississippi (1980-1983).
    Mississippi State Auditor General (1984-1988).
    Governor of Mississippi (1988-1992).
    Ambassador to the Kingdom of Saudi Arabia (1994-1996).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Board Member, Enersys, Inc.
    Board Member, Strategic Partnerships.
    Board Member, Fusion Telecommunications.
    Board Member, Eggs Overnight.
    Managing Member, REM Strategies.
    Board Member, Citizens International.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board Member, RAND Center for Middle East Public Policy.
    Board Member and Treasurer, AMIDEAST.
    Member, Council on Foreign Relations.
    Board Member and Founder, Help and Hope Foundation.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Governor of Mississippi
    State Auditor of Mississippi
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Senior Advisor, Obama for America.
    Foreign Policy Advisor, John Kerry for President.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of Defense Distinguished Public Service Award
    Department of the Army Distinguished Civilian Service Award
    Martin Luther King, Jr., Social Responsibility Award by the
    King Center in Atlanta, GA.
    King Abdul Aziz Award, Kingdom of Saudi Arabia
    International Security Leadership Award of National Security 
Council Foundation
    Jackson, MS Clarion Ledger, Best Governor of the 20th Century 
Reader Poll Award
    Fortune Magazine ``Top Ten Education Governors''
    National Wildlife Federation's Conservation Achievement Award
    Mississippi Association of Educators' ``Friend of Education'' Award

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Yale Journal of Biology and Medicine, ``Medicine in Mississippi'' 
1992.
    Technological Horizons In Education Journal, ``A New Light in 
Education: Mississippi 2000'' 1991.
    ``Light on the Land: Photographs of the World by Ray Mabus'' Blurb 
Online Publishers 2008.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                         Ray Mabus.
    This 27th day of April, 2009.

    [The nomination of Raymond E. Mabus, Jr., was reported to 
the Senate by Chairman Levin on May 14, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 18, 2009.]

                              ----------                              

    [Prepared questions submitted to Robert O. Work by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience with the Department of Defense 
(DOD)?
    Answer. I believe the act has yielded enormous benefits to DOD such 
as strengthened joint operational commanders and better military advice 
to the President. I do not, at this time, see a need for modifications 
to Goldwater-Nichols. However, if confirmed, my subsequent experience 
as the Under Secretary of the Navy could potentially suggest further 
needed changes. Should that be the case, I would identify recommended 
changes to the Secretary of the Navy.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I am aware of no modifications at this time.
    Question. Do you believe that the role of the Service Secretaries 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. I do not see a need for any changes to the roles of the 
Service Secretaries at this time. However, if confirmed, my subsequent 
experience as the Under Secretary of the Navy could potentially suggest 
further needed changes. Should that be the case, I would identify 
recommended changes to the Secretary of the Navy.
                                 duties
    Question. Section 5015 of title 10, U.S.C., states the Under 
Secretary of the Navy shall perform such duties and exercise such 
powers as the Secretary of the Navy may prescribe.
    Assuming you are confirmed, what duties and powers do you expect to 
be assigned to you?
    Answer. The Under Secretary of the Navy performs such duties and 
exercises such powers as the Secretary of the Navy prescribes. If 
confirmed, I will review the duties assigned to the Under Secretary in 
the current SECNAVINST 5430.7P, and discuss them with the Secretary of 
the Navy. I will then determine the manner in which the Secretary 
desires me to function. I expect that the Secretary will assign me 
duties that are consistent with my background and expertise.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Under Secretary of the Navy to the following officials:
    The Secretary of the Navy.
    Answer. The Under Secretary of the Navy is the deputy and principal 
assistant to the Secretary of the Navy, and acts with full authority of 
the Secretary of the Navy in managing the Department of the Navy. The 
Under Secretary and Secretary of the Navy should have a close, personal 
relationship based on trust and mutual respect.
    Question. The Chief of Naval Operations.
    Answer. The Under Secretary deals directly with the CNO in all 
Departmental leadership meetings and when acting in the Secretary's 
stead. The Under Secretary of the Navy works most closely with the Vice 
Chief of Naval Operations. Both of these relationships are very 
important to the day-to-day running of the Department of the Navy 
(DON), and should be based on mutual respect, trust, and cooperation.
    Question. The Commandant of the Marine Corps.
    Answer. The Under Secretary deals directly with the Commandant of 
the Marine Corps in all Departmental leadership meetings and when 
acting in the Secretary's stead. The Under Secretary of the Navy works 
most closely with the Assistant Commandant of the Marine Corps. Both of 
these relationships are very important to the day-to-day running of the 
DON, and should be based on mutual respect, trust, and cooperation.
    Question. The Assistant Secretaries of the Navy.
    Answer. Under any circumstances, the relationship between the Under 
Secretary and the Assistant Secretaries is a close one. The exact 
working relationship will be determined by the management style of the 
Secretary of the Navy, and the duties he delegates to the Under 
Secretary.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, the Under Secretary will deal closely with 
the GC on staff matters on a variety of issues, such as base 
encroachment and marine mammals.
    Question. The Vice Chief of Naval Operations.
    Answer. The Under Secretary of the Navy works very closely with the 
Vice Chief of Naval Operations and the Assistant Commandant of the 
Marine Corps. The three ensure the smooth staffing of issues through 
the Department and Secretariat, work together to ensure a close working 
relationship between the service staffs, and resolve disagreements. 
This relationship is very important to the day-to-day running of the 
DON, and should be based on respect, trust, and cooperation.
    Question. The Judge Advocate General of the Navy.
    Answer. If confirmed, I believe I will deal with the Navy JAG 
primarily through the General Counsel.
    Question. The Chief Management Officer (CMO) and Deputy Chief 
Management Officer of the DOD.
    Answer. The Under Secretary of the Navy is designated the CMO for 
the DON. If confirmed, I will deal directly with the Deputy Secretary 
of Defense (DOD CMO) and the DOD DCMO on the full range of matters 
dealing with the management of the DOD, and will assist in the 
development of a comprehensive Departmental transformation plan and 
business systems architecture, and help to identify and implement 
potential business process improvements.
    Question. The Director of the Navy's Office of Business 
Transformation.
    Answer. The Director of the Navy's Office of Business 
Transformation is currently designated as the DON DCMO. If confirmed, I 
would work closely with the DCMO to determine needed changes to 
Departmental transformation plan, business systems architecture, and to 
identify needed business process improvements.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Under Secretary of the Navy?
    Answer. The Department of the Navy has operated without an Under 
Secretary of the Navy for over 2 years. If confirmed, one major 
challenge will be to re-integrate the office of the Under Secretary 
into the day-to-day activities of the DON, and to provide value added 
support to the Secretary of the Navy in tackling the challenges 
discussed below.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, there are an enormous number of challenges 
facing the DON. First is to help the Secretary of the Navy plan and 
execute a smooth leadership transition from the outgoing administration 
to the new one. To that end, I would work closely with the White House, 
Secretary of Defense and Secretary of the Navy to assemble a top-
quality cadre of civilian leaders with the expertise and experience to 
effectively perform the duties of the key positions that must be 
filled. The second challenge is to participate in the 2009 Quadrennial 
Defense Review (QDR) and to ensure that the DON's fiscal year 2011 
budget is consistent with the President's, SecDef's, and Secretary of 
the Navy's priorities, and outlines a program consistent with expected 
future resource allocations. A third challenge will be to perform an 
active reform agenda for the management of the DON. If confirmed, I 
would devote a considerable portion of my time to improve DON processes 
for strategic planning, program and budget development, and acquisition 
oversight. Improving the Department's record on cost control and 
improving its budget and cost forecasts would also be a top priority. 
Finally, and of utmost importance, I would work to try to make the 
DON's Safe Harbor and Wounded Warrior Regiment programs the standard 
for excellence within the DOD.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Navy?
    Answer. The Department of the Navy has operated without an Under 
Secretary of the Navy for over 2 years. If confirmed, it will take some 
time to reassert the duties and responsibilities of the Under 
Secretary.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, my first priority would be to set up a well 
run office of the Under Secretary and to establish new staffing 
procedures. If confirmed, this should be done within the first 30 days 
of assuming the position. All other actions, priorities, and 
established timelines would be developed after close consultation with 
the incoming Secretary of the Navy.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. If confirmed, I will support the Secretary of the Navy in 
his efforts to articulate the challenges the Department must address to 
meet the principle objectives Secretary Gates has articulated:

        <bullet> ``Reaffirm our commitment to All-Volunteer Force''
        <bullet> ``Rebalance programs in order to institutionalize and 
        enhance our capabilities to fight the wars we are in today and 
        the scenarios we are most likely to face in the years ahead, 
        while at the same time providing a hedge against other risks 
        and contingencies.''
        <bullet> ``In order to do all this, we must reform how and what 
        we buy, meaning a fundamental overhaul of our approach to 
        procurement, acquisition and contracting.''

    If confirmed, I will support the Secretary of the Navy's efforts to 
initiate or reinforce existing direction aimed at meeting these 
challenges, including:

        <bullet> Sustain a cadre of officers and enlisted personnel, 
        and supporting civil service that is technically competent and 
        culturally adept. Maintain a capable and diverse workforce.
        <bullet> Focus appropriate resources in support of the current 
        fight, readiness, homeland defense, etc.
        <bullet> Develop a portfolio of capabilities to cover all 
        realistic scenarios to fight and win our Nation's wars which 
        includes a blend of capabilities in Cooperative Security, 
        Irregular Warfare and Conventional Warfare.
        <bullet> Establish and maintain a long-term shipbuilding 
        program that is achievable, affordable, and responsive to the 
        needs of the Nation.
        <bullet> Reaffirm the ethical basis of the naval institution; 
        ensure the highest standards of conduct that exemplify the 
        Department's core values of honor, courage, and commitment.
        <bullet> Firmly embrace my role as CMO to align and improve 
        business processes to enable the most effective and efficient 
        delivery of all missions and capabilities.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2008 designates the Under Secretary of the Navy 
as the Navy's CMO. Section 908 of the NDAA for Fiscal Year 2009 
requires the CMO of each of the military departments to carry out a 
comprehensive business transformation initiative, with the support of a 
new Business Transformation Office.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in his capacity as CMO of the Department of the 
Navy?
    Answer. If confirmed, my most important duty as DON CMO will be to 
ensure that the DON has a pragmatic and well thought-out comprehensive 
business transformation plan with measureable performance goals and 
objectives. In addition, I will work to develop a well-defined 
enterprise-wide business systems architecture and transition plan. In 
this regard, I would work with the DCMO to:

        <bullet> Transform the budget, finance, accounting, and human 
        resource operations of the DON consistent with the DON business 
        transformation plan
        <bullet> Eliminate or replace financial management systems that 
        are inconsistent with the business systems architecture and 
        transition plans
        <bullet> Monitor the implementation of both the business 
        transformation plan and business systems architecture.

    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. The Under/CMO must have a thorough knowledge of the 
Department of the Navy; understand and respect the cultures of the Navy 
and Marine Corps as well as the DON's civilian civil service force; 
understand the way programs and budgets are developed; and be a strong 
leader and manager. During my 27 year career in the Marine Corps, I 
served in a variety of command and staff positions where I honed my own 
leadership and management skills. During the last 5 years of active 
service, first as the Director of the Marine Corps Strategic 
Initiatives Group and later as Senior Aide and Military Assistant to 
the Secretary of the Navy, I developed a thorough understanding of the 
Department, its two services and civilian workforce, and the 
programming and budgeting process, as well as a working understanding 
of the Department's core business processes. After retiring, I studied 
the Department carefully, focusing on shipbuilding and acquisition 
programs. I therefore believe that my background provides a solid 
foundation for the position as CMO. However, I also recognize that the 
job of CMO encompasses a very diverse set of responsibilities and 
challenges. So I accept that I have much to learn, and will rely 
heavily on the knowledge and advice of military personnel and civilian 
experts in the Departments of Defense and Navy.
    Question. Do you believe that the CMO and the Business 
Transformation Office have the resources and authority needed to carry 
out the business transformation of the Department of the Navy?
    Answer. My understanding is that absent an Under Secretary, the DON 
assigned the CMO duties to the Assistant Secretary of the Navy for 
Financial Management/Comptroller and established an Office of Business 
Transformation headed by a civilian highly qualified expert. If 
confirmed, I will assume duties as the CMO and review all of the DON's 
efforts associated with the CMO/DCMO since the NDAA for Fiscal Year 
2008. I will place a high priority on determining whether or not the 
CMO/DCMO efforts have the requisite authorities and required resources 
needed to implement the intent of the legislation. If I find the 
resources and authorities to be insufficient, I will work to correct 
the problem.
    Question. What role do you believe the CMO and the Business 
Transformation Office should play in the planning, development, and 
implementation of specific business systems by the military 
departments?
    Answer. If confirmed, I will work with the DCMO/Director, Business 
Transformation Office to ensure the development of a well-defined 
enterprise-wide business systems architecture and a business 
transformation plan that provides accurate performance measures and 
goals to improve the core business operations in the DON.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO and creating the 
Business Transformation Office?
    Answer. I do not have the data to make any recommended changes to 
the associated statutory provisions at this time.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes. The Department has chosen to implement 
the requirement for an enterprise architecture and transition plan 
through a ``federated'' approach in which the Business Transformation 
Agency has developed the top level architecture while leaving it to the 
military departments to fill in most of the detail. The Navy's business 
systems, like those of the other military departments, remain incapable 
of providing timely, reliable financial data to support management 
decisions. In particular, the Government Accountability Office has 
reported that the Navy has not yet followed DOD's lead in establishing 
new governance structures to address business transformation; has not 
yet developed comprehensive enterprise architecture and transition plan 
that plug into DOD's federated architecture in a manner that meets 
statutory requirements; and instead continues to rely upon old, 
stovepiped structures to implement piecemeal reforms.
    If confirmed, what steps, if any, would you take to ensure that the 
Navy develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. If confirmed as the Under Secretary, I will take my 
responsibilities as the DON's CMO very seriously, and work every day to 
give the Secretary of Defense, Secretary of the Navy, Congress, and 
American people the highest return on their investment in their Navy 
and Marine Corps. After ascertaining the state of the DON's business 
transformation efforts, I will evaluate and consider the GAO findings 
and recommendations and work to make the changes necessary to develop 
the very best business systems and processes needed to appropriately 
manage Departmental funds.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Navy's business systems?
    Answer. Absolutely.
    Question. What steps would you take, if confirmed, to ensure that 
the Navy's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. If confirmed, I will work with the DCMO and the DON 
Business Transformation Council to review systems investment plans and 
develop appropriate measures of effectiveness based on section 2222.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Accurate and timely management information, to include 
financial information is the fundamental requirement for ensuring both 
proper stewardship and the best application of taxpayer dollars. I 
understand that the DON Financial Improvement program is already 
pursuing this goal as part of the broader DOD initiative. This effort 
is a central element of the DON business transformation strategy.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, I would demand that those responsible for 
providing this information provide it. If they lacked the systems 
needed to generate the information, I would work to get them the 
systems needed to produce the data. If they still proved incapable of 
providing timely and useful information, I would replace them, and seek 
someone able to generate the information.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Navy managers?
    Answer. If confirmed, I will work closely with the Department's 
Assistant Secretary of the Navy Financial Manager/Comptroller to 
execute those measures required to improve the quality of financial 
information used for decisionmaking.
                              end strength
    Question. What are your views on the appropriate size and mix of 
the active-Duty Navy and Marine Corps, and their Reserve components?
    Answer. If confirmed, I will work with the two Services to generate 
affordable manpower requirements, and to help them achieve the optimal 
balance of Active and Reserve end strength, experience, skills, and 
seniority, for both officers and enlisted.
    Question. How does Navy support to the ground forces in the form of 
individual augmentee missions affect Navy end strength requirements?
    Answer. As I understand it, the Navy has worked very hard to 
develop a coherent and affordable plan for individual augmentees. If 
confirmed, I intend to review this initiative and how it affects Navy 
end strength requirements and readiness, for both shore and sea 
billets.
                             transformation
    Question. If confirmed as the [Under] Secretary of the Navy, you 
would play an important role in the ongoing process of transforming the 
Navy and Marine Corps to meet new and emerging threats.
    If confirmed, what would your goals be for Navy and Marine Corps 
transformation?
    Answer. If confirmed, I will enter the Department with no preformed 
goals for Navy and Marine Corps transformation. I will work within the 
framework of the 2009 QDR to understand the President's, Secretary of 
Defense's and Secretary of the Navy's future goals for the two 
Services. I will offer my best judgment and recommendations on the 
development of these goals. Once the Department's goals are 
established, I would do my level best to achieve them.
    Question. In your opinion, does the Department of the Navy's 
projected budget have adequate resources identified to implement your 
transformation goals?
    Answer. I have not been briefed in detail on the fiscal year 2010 
budget, so I cannot make a judgment as to their adequacy. A key aim for 
the QDR is to balance departmental goals and resources. If confirmed, I 
will take part in the QDR process to achieve this balance.
                     low density/high demand forces
    Question. If confirmed, how would you address the Department of the 
Navy's challenge in manning low density/high demand units, ratings, and 
occupational specialties?
    Answer. If confirmed, one of the first questions I will ask is what 
platforms, units, ratings, and occupational specialties are considered 
low density/high demand. I will then review the plans to develop or 
grow the platforms, units, ratings, and occupational specialties so as 
to limit the deployment demand on equipment and personnel, such as 
offering targeted bonuses and special incentive pays to the appropriate 
ratings and specialties. I will ensure that the Services have means by 
which to monitor dwell time to ensure that units and individuals have 
adequate time to rest and be with their families, and the 
implementation of mitigation strategies for high demand/low density 
units and personnel.
                   national security personnel system
    Question. Section 1106 of the NDAA for Fiscal Year 2008 restored 
the collective bargaining rights of civilian employees included in the 
National Security Personnel System (NSPS) established by the DOD 
pursuant to section 9902 of title 5, U.S.C. Under section 1106, the 
Department retains the authority to establish a new performance 
management system (including pay for performance) and streamlined 
practices for hiring and promotion of civilian employees.
    What is your view of the NSPS, as currently constituted?
    Answer. At this time I am not knowledgeable of all of the details 
of the NSPS. I am aware that the Department of the Navy has put forth a 
significant amount of effort to implement NSPS and ensure the civilian 
workforce is adequately trained and informed.
    Question. If confirmed, how will you evaluate its success or 
failure to meet its goals?
    Answer. If confirmed, I will determine NSPS goals; identify 
existing plans to achieve them; and judge their adequacy. I will direct 
adjustments to plans, as necessary, and will monitor the Department's 
subsequent implementation of revised plans.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. At this time I am not aware of the specifics of the NSPS 
pay-for-performance program. However, in order to recruit, motivate, 
and retain quality civilian personnel, it is essential to ensure that 
they are appropriately compensated for their performance.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. Expedited hiring authority is an exceptional tool in the 
recruiting process. If confirmed, I would consider expedited hiring 
authority for critical positions.
    Question. In your view, is it viable in the long run for the DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. At this time, I am not aware of how NSPS works with the GS 
system. If confirmed, I will review the differences between the two 
systems and work for the greatest degree of standardization possible.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. I have no specific legislative changes to propose at this 
time.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. I have no specific regulatory changes to propose at this 
time.
             navy and marine corps recruiting and retention
    Question. The retention of quality sailors and marines, officer and 
enlisted, Active-Duty and Reserve, is vital to the Department of the 
Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. Recruiting and retention in both the Navy and Marine Corps 
appear to be strong. As I understand it, the Navy and Marine Corps are 
currently meeting or exceeding enlisted and officer recruiting goals 
across both the active and Reserve components, while exceeding DOD 
quality standards in all recruit categories. In addition, there has 
been increased retention and lower attrition across the force.
    How would you evaluate the recruiting and retention of uniformed 
and civilian health care professionals?
    Answer. I have not been briefed on this issue. If confirmed, I will 
look into it.
    Question. What initiatives would you take, if confirmed, to further 
improve Navy and Marine Corps recruiting and retention, in both the 
active and Reserve components, including health care professionals?
    Answer. I have not been briefed on the initiatives in place, or 
their effectiveness. However, if confirmed, I would explore and argue 
for ``best in class'' programs and policies to attract and retain high 
quality people. This might include targeted bonuses and special 
incentive pays for critical skills in the medical field.
           defense integrated manpower human resources system
    Question. The Defense Integrated Manpower Human Resources System 
(DIMHRS) is a single integrated human resources pay and personnel 
system for all the armed services and the Defense Finance and 
Accounting System, and is intended to replace many of the systems 
currently used to perform personnel management and pay functions. 
DIMHRS, which has been under development for several years, has come 
under criticism for cost growth, delays in implementation, and not 
meeting the expectations of each Service.
    What are your views of the need for completion of implementation of 
DIMHRS and what specific benefits, if any, would the Department of the 
Navy derive from this system?
    Answer. I have not had an opportunity to learn about the DIMHRS 
system in depth. If confirmed, I will evaluate the system and work with 
the Secretary of the Navy and DOD leadership to ensure that our 
personnel system is compatible with DOD approved systems and is fully 
supportive of our sailors and marines.
                       delivery of legal services
    Question. What is your understanding of the respective roles of the 
General Counsel and Judge Advocate General of the Navy in providing the 
Secretary of the Navy with legal advice?
    Answer. Both the Judge Advocate General and the Staff Judge 
Advocate to the Commandant perform functions in their respective 
organizations that are essential to the proper operation of their 
Service and the Department as a whole. The Judge Advocate General and 
Staff Judge Advocate to the Commandant work closely with the Navy 
General Counsel. Their unique expertise and independent judgment and 
advice complement that of the General Counsel and offer the necessary 
blend of legal advice to the civilian and military leadership.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant to provide independent legal advice to the Chief of Naval 
Operations and the Commandant of the Marine Corps, respectively?
    Answer. It is critical that the CNO and the CMC receive independent 
legal advice from the senior uniformed judge advocates.
    Question. What are your views about the responsibility of staff 
judge advocates within the Navy and Marine Corps to provide independent 
legal advice to military commanders in the fleet and throughout the 
naval establishment?
    Answer. Uniformed staff judge advocates, assigned worldwide and 
through the chain of command are essential to the proper functioning of 
the operational and shore-based Navy and Marine Corps. Navy and Marine 
Corps commanders depend extensively on their staff judge advocates for 
their unique expertise that combines legal acumen with the well-
schooled understanding of military operations and requirements.
                   navy judge advocate general corps
    Question. The Center for Naval Analyses (CNA) recently completed a 
study of manpower requirements for the Navy in which it concluded that 
the Navy's Judge Advocate General Corps was significantly under 
strength for its mission, including combat service support of Marine 
Corps' units and Task Force 134 in Iraq.
    What is your understanding of the CNA study's findings with respect 
to manpower in the Navy JAG Corps?
    Answer. I am not familiar with the CNA study. If confirmed, I will 
review this report and consider its recommendations.
    Question. What is your understanding of the sufficiency of the 
number of active-duty judge advocates in the Marine Corps to provide 
legal support for all the Marine Corps' missions?
    Answer. At this time, I am not aware of the overall manpower needs 
of the legal community within the Navy or Marine Corps. If confirmed, I 
will evaluate this issue.
    Question. If confirmed, will you review the judge advocate manning 
within the Navy and Marine Corps and determine whether current active-
duty strengths are adequate?
    Answer. Yes.
               prevention and response to sexual assaults
    Question. What is your evaluation of the progress to date made by 
the Navy and Marine Corps in preventing and responding adequately to 
incidents of sexual assault?
    Answer. I am aware that the Navy and Marine Corps have undertaken 
several important measures to address the prevention and response to 
sexual assaults. I have not had an opportunity to fully review these 
programs. However, as a former Marine commander, I know these programs 
are critically important. If confirmed, they will receive my sustained 
attention.
    Question. What problems do you foresee, if any, in implementing 
current policies with respect to confidential, restricted reporting of 
sexual assaults by sailors and marines?
    Answer. At this time, I am not aware of any problems in 
implementing current sexual assault reporting programs. If confirmed, I 
will evaluate policy implementation as part of a Departmental review of 
sexual assault prevention and response programs.
    Question. If confirmed, what actions do you plan to take to ensure 
that senior civilian leaders of the Department of the Navy have ongoing 
visibility into incidents of sexual assault and the effectiveness of 
policies aimed at preventing and responding appropriately to such 
incidents?
    Answer. If confirmed, I will evaluate the current reporting and 
response policies and systems accessible to senior civilian leaders in 
the Department to determine whether any modifications would be 
appropriate.
               preventing sexual harassment and violence
    Question. The Defense Task Force on Sexual Harassment and Violence 
at the Military Service Academies reported that ``Historically, sexual 
harassment and sexual assault have been inadequately addressed at both 
Academies [United States Military Academy and United States Naval 
Academy]. Harassment is the more prevalent and corrosive problem, 
creating an environment in which sexual assault is more likely to 
occur. Although progress has been made, hostile attitudes and 
inappropriate actions toward women, and the toleration of these by some 
cadets and midshipmen, continue to hinder the establishment of a safe 
and professional environment in which to prepare military officers. 
Much of the solution to preventing this behavior rests with cadets and 
midshipmen themselves.''
    If confirmed, what actions would you take to encourage not only 
midshipmen but also all sailors and marines to step up to their 
responsibility to create a culture where sexual harassment and sexual 
assault are not tolerated?
    Answer. Sexual harassment and assault cannot be tolerated. If 
confirmed, I will evaluate the current culture along with reporting and 
response policies to determine whether or not modifications would be 
appropriate.
                   personnel and health benefit costs
    Question. The cost of the Defense Health Program, like the cost of 
medical care nation-wide, is escalating rapidly. Similarly, the cost of 
personnel as a key component of the Services' budgets has risen 
significantly in recent years.
    If confirmed, how would you approach the issue of rising health 
care and personnel costs?
    Answer. Costs associated with personnel are by far the largest part 
of the Department's budget. A key priority is to operate as efficiently 
and effectively as possible with respect to utilization of personnel. 
The military and civilian force structure must be right sized for the 
mission but not any larger than necessary. As stewards of the 
taxpayer's money, the Department needs to utilize the fiscal resources 
it dedicates for personnel in the optimum manner. A key part of this 
thought process is to ensure that the Department apportions that part 
of the budget devoted to personnel on those benefits that deliver the 
best value to naval personnel. Medical is just one piece of the overall 
benefit package.
    If confirmed, I will seek new options and approaches to address the 
rising cost of health care and other personnel costs and work with the 
Secretary of Defense, Secretary of the Navy, and Congress to address 
this critical matter, while ensuring that our sailors and marines have 
access to the quality health care they deserve.
                        quality of life programs
    Question. If confirmed, what priorities would you establish to 
ensure that military quality of life programs are sustained and 
improved for Navy and Marine Corps members and their families?
    What challenges do you foresee in sustaining quality of life 
programs, and are there new initiatives that you would undertake, if 
confirmed, to ensure the availability of high quality services, 
including child care, education, and recreational opportunities, for 
sailors and marines and their families?
    Answer. Navy and Marine Corps personnel of all ranks deserve high 
quality family programs. Family health is as important a component of 
personnel readiness as the personal health of sailors and marines. 
Quality of life programs enable the Department of the Navy to compete 
in the job market to attract and recruit bright, talented young people. 
Those same high quality programs are essential to provide the level of 
personal and job satisfaction that allows the Department to retain our 
best and brightest Sailors and Marines. If confirmed, I will work with 
the Office of the Secretary of Defense (OSD), the Secretary of the 
Navy, Assistant Secretary of the Navy for Manpower and Reserve Affairs, 
and Navy and Marine Corps leaders to ensure we are focused on the 
quality of life programs that meet the needs of all naval personnel.
                             family support
    Question. What do you consider to be the most important family 
readiness issues in the Navy and Marine Corps, and, if confirmed, what 
role would you play to ensure that family readiness needs are addressed 
and adequately resourced?
    Answer. As a former dependent of an active duty marine, and later a 
husband and father in an active duty military family, I have a keen 
appreciation for the importance of family readiness programs and 
issues. I consider all family readiness issues to be important. If 
confirmed, I will take a close personal interest in Navy and Marine 
Corps family readiness programs, and will strive to meet all family 
readiness needs throughout the Navy-Marine Corps team.
    Question. If confirmed, how would you address these family 
readiness needs in light of global rebasing, BRAC, deployments, and the 
recent growth in the active-duty end strength of the Marine Corps?
    Answer. I do not have the detailed information needed to answer 
this question. If confirmed, I intend to closely follow all rebasing, 
BRAC, and manpower and family readiness issues, and take the actions 
necessary to provide Navy and Marine families with the best support 
possible.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as active duty families who do not reside near a 
military installation?
    Answer. If confirmed, I intend to work with the Secretary of the 
Navy to maintain focus and commitment to the quality of life needs of 
all Navy personnel, regardless of where they live.
                           suicide prevention
    Question. Effective measures to prevent suicides remain a high 
priority. The suicide rates in both the Navy and Marine Corps have 
increased over the past 2 years.
    What initiatives would you take, if confirmed, to improve the Navy 
and Marine Corps Suicide Prevention Programs? If confirmed, how would 
you seek to reduce stigma associated with seeking personal counseling 
and eliminate policies and procedures that may inadvertently prevent 
sailors and marines from seeking professional help for emotional or 
mental health problems?
    Answer. Over a 27-year career in the Marine Corps, I had to 
personally deal with two suicides. Both were devastating for the family 
of the servicemember who committed the act, as well as the 
servicemember's parent unit. I am therefore deeply concerned about the 
incidents of suicide in the Department. If confirmed, I intend to 
leverage all tools available to improve the quality and access to 
suicide prevention programs, to reduce the stigma associated with 
seeking mental health treatment, and to consider new programs to help 
families and units deal with the trauma of these devastating acts.
       support for wounded, ill, and injured sailors and marines
    Question. Wounded servicemembers from Operations Enduring Freedom 
and Iraqi Freedom deserve the highest priority from the Navy and Marine 
Corps for support services, healing and recuperation, rehabilitation, 
evaluation for return to duty, successful transition from active duty 
if required, and continuing support beyond retirement or discharge.
    How do the Navy and Marine Corps provide follow-on assistance to 
wounded personnel who have separated from active service? How effective 
are those programs?
    Answer. I understand that the Navy has established the Safe Harbor 
Program and the Marine Corps the Wounded Warrior Regiment. Both extend 
support to the wounded heroes within the Navy and Marine Corps. Both 
programs continue to offer support should a servicemember be separated 
or retire due to medical issues, up through and including reintegration 
to a community. An annual survey is used to determine the effectiveness 
of these programs. These surveys help to develop best practices and 
process improvements to optimize the success of these programs.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's and Marine 
Corps' support for wounded personnel, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. If confirmed, I will determine if additional strategies and 
resources are needed to ensure that wounded sailors and marines and 
their families are provided with optimum medical care and nonmedical 
care and support throughout their recovery, rehabilitation, 
reintegration, and beyond. These men and women deserve no less.
    Question. What measures would you take, if confirmed, to facilitate 
the seamless transition of wounded, ill, and injured sailors and 
marines from the DOD to the Department of Veterans Affairs (VA)?
    Answer. I am not fully familiar with all of the programs that 
exists, or how they are performing. However, if confirmed, I will work 
to foster a seamless transition for continuity of service between the 
DOD and VA systems of care.
    Question. Would you propose any changes to the Navy's disability 
evaluation system?
    Answer. The Physical Evaluation Board manages the Department of the 
Navy's disability evaluation system. If confirmed, I intend to review 
the evaluation and separation process to ensure it is fair, thorough 
and regimented for all servicemembers.
              senior military and civilian accountability
    Question. While representative of a small number of individuals in 
DOD, reports of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently received. Whistleblowers and victims of such abuses often 
report that they felt that no one would pay attention to or believe 
their complaints. Accusations of unduly lenient treatment of senior 
officers and senior officials against whom accusations have been 
substantiated are also frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. Individuals should be held accountable for abuses of their 
position and authority, regardless of their position in the 
Department's hierarchy. Senior leaders must be held accountable through 
the use of prompt and thorough investigation of complaints, as well as 
prompt and appropriate treatment for offenders. If confirmed, I will 
work with the Secretary of the Navy to enforce the highest ethical and 
professional standards with the Department of the Navy.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Navy and Marine Corps are held accountable for 
their actions and performance?
    Answer. Individuals should be held accountable for abuses of their 
rank and authority, regardless of their position in their Service's 
hierarchy. Senior leaders must be held accountable through the use of 
prompt and thorough investigation of complaints, as well as prompt and 
appropriate treatment for offenders. If confirmed, I will work with the 
Secretary of the Navy to enforce the highest ethical and professional 
standards within the leadership ranks of the Navy and Marine Corps.
                     navy support to ground forces
    Question. The Navy has been challenged to find new ways of 
supporting the Army and Marine Corps in Iraq and Afghanistan by taking 
on nontraditional support functions.
    In your view, what are the kinds of nontraditional support the Navy 
feasibly can provide, and what additional missions, if any, should the 
Navy be assigned in the global war on terrorism? Given that these are 
nontraditional roles for Navy personnel, what additional training and 
equipment have been provided, or, in your view, need to be provided?
    Answer. The U.S. Navy is fully committed to the fight against al 
Qaeda and its extremist allies. Right now, the Navy has over 14,000 
officers and sailors on the ground in the Central Command's Area of 
Responsibility--more than they have afloat in the region. Some are 
performing their traditional jobs, like Seabees and Explosive Ordnance 
Disposal Technicians. Others are performing nonstandard roles, such as 
commanding Provincial Reconstruction Teams in Afghanistan. It is 
vitally important that the Department do everything in its power to 
ensure that those servicemembers who are performing nontraditional 
roles receive the training needed to accomplish their assigned tasks. 
If confirmed, I will work closely with the Secretary of the Navy to 
ensure that this training is taking place.
    Question. What procedures are in place for the Navy to assess the 
potentially adverse operational effect on organizations from which 
individual augmentees are drawn? If you do not believe these procedures 
are adequate, what should be done to strengthen them?
    Answer. As I understand it, the Navy has had to reduce readiness 
both at sea and ashore to provide the numbers of Individual Augmentees 
now requested by the Central Command. If confirmed, one of my top 
priorities will be to understand fully the entire Individual 
Augmentation process, and to work with the Secretary to minimize its 
impact on fleet-wide readiness, while ensuring that the Navy continues 
to support current operations wherever it is needed.
                           tactical aviation
    Question. Several years ago, the Navy and Marine Corps began to 
integrate their tactical aviation units.
    What is your assessment of this initiative?
    Answer. Execution of Tactical Air (TACAIR) Integration has been 
challenged by the impact of Operation Iraqi Freedom and Operation 
Enduring Freedom requirements and the surge requirements of the Navy's 
Fleet Response Plan that has resulted in what some consider to be a 
present shortfall in Navy carrier air wing force structure. However, it 
is my understanding that for the immediate future, Navy and Marine 
Corps will continue to meet all of their TACAIR operational 
commitments, enhanced by tightly integrated carrier air wings and 
Marine air-ground task forces. If confirmed, I intend to review this 
initiative and its ability to optimize the use of our Nation's naval 
tactical aviation assets.
    Question. The Department of the Navy is facing a potential 
shortfall of strike fighter aircraft in the next decade even if the 
Navy continues to buy F/A-18E/F aircraft and F-35 Joint Strike Fighter 
aircraft at the rate projected in last year's budget.
    What is your assessment of this situation and what actions should 
the Department of the Navy take to address this potential shortfall?
    Answer. I have not had an opportunity to review any detailed 
analysis associated with it. Accordingly, I am unable to provide a 
meaningful assessment of the situation at this time. If confirmed, I 
intend to review the overall strike fighter issue in detail as part of 
the 2009 QDR, and the strategies now in place to mitigate any 
shortfall. I intend to work with the Secretary of the Navy, the 
Secretary of Defense and Congress to achieve the best resolution for 
the Department.
    Question. What is your understanding of whether the Navy will 
continue to operate the 10 carrier air wings that supported the fleet 
of 11 aircraft carriers, or whether the air wing force structure will 
be modified to reflect a planned reduction to a permanent level of 10 
aircraft carriers?
    Answer. Under current law, the Navy must maintain a force of 11 
active carriers. The Secretary of Defense's recent fiscal year 2010 
budget roll-out indicated that the carrier force would fall to 10 
carriers in 2040, the result of moving to a build rate of 1 carrier 
every 5 years. As I understand it, the Navy is seeking a legislative 
waiver to allow it to temporarily reduce the carrier force to 10 
carriers for a period of not less than 33 months, the period of time 
between the planned retirement of the USS Enterprise, CVN-65, and the 
planned commission of the USS Gerald R. Ford, CVN-68. I am not aware of 
plans to reduce air wing force structure although I would expect this 
issue, like all force structure issues, would be reviewed by the QDR. 
If confirmed, I intend to follow this review carefully.
    Question. What is your assessment of the current risk to the F-35 
Joint Strike Fighter (JSF) Program schedule during its system 
development and demonstration phase?
    Answer. Although I know the Navy and Marine Corps are both fully 
committed to the Joint Strike Fighter program, I have yet to have the 
opportunity to be briefed on the current status of the JSF program. I 
am therefore unable to offer any program risk assessment.
    Question. Alternatives for maintaining sufficient strike assets if 
there are new schedule difficulties with the JSF program are limited. 
It appears that the Department of the Navy's options for extending the 
service life of existing F/A-18 aircraft are limited and procurement of 
additional F/A-18 aircraft beyond those planned last year may be more 
difficult with the Secretary of Defense's recent announcement of a 
reduction of nine F/A-18 aircraft from the number originally planned 
for the fiscal year 2010 program.
    What other potential alternatives do you see for maintaining 
sufficient strike assets if there were any additional slippage in the 
initial operating capability date for the F-35 Joint Strike Fighter?
    Answer. If confirmed, I intend to fully review the Department's 
tactical aviation requirements and plans. I will work to identify all 
reasonable and affordable alternatives, if necessary, for maintaining 
Department-wide tactical aviation and strike capability during the 
transition to the Joint Strike Fighter program.
                           shipbuilding plan
    Question. The Navy annually submits a 30-year shipbuilding plan. 
The last shipbuilding plan included very optimistic assumptions about 
unit costs of ships and excluded any funding for a replacement for the 
current fleet of Trident ballistic missile submarines.
    Do you agree that the 30-year shipbuilding plan should, in fact, 
reflect realistic cost estimates and include all important shipbuilding 
efforts for that document to be useful for decisionmakers? What level 
of funding do you think the Navy will need to execute this plan, and 
considering competing priorities, do you believe this level of funding 
is realistic?
    Answer. The Navy's shipbuilding plan will be an important item in 
the 2009 QDR. The output of this activity should be a new 30-year 
shipbuilding program. If confirmed, I will be able to review the data 
supporting the plan, and provide an estimate of the level of resources 
needed to execute the plan. As a general principle, I believe that any 
Navy plan submitted to Congress should be based on the best estimates 
available at the time, and fully consistent with expected future 
resource streams. This is especially true for the Navy's 30-year 
shipbuilding program, which has a disproportionate impact on DON 
acquisition plans and industrial base calculations.
    Question. To what extent should such commercial shipbuilding best 
practices, and any others you may be aware of, be incorporated into 
Navy shipbuilding programs?
    Answer. Building warships is significantly more complex than 
building commercial ships under any circumstances. The differences 
compound when building warships at low rates of production. However, 
there are some basic tenets that hold true in all construction 
processes: smart development of requirements; completing design to the 
greatest extent possible before construction; building in sequence; and 
minimizing design changes once construction begins. If confirmed, I 
will work with OSD, Secretary of the Navy, ASN for Research, 
Development, and Acquisition, the naval shipbuilding enterprise and 
industry to identify and implement those best practices and innovations 
with the greatest potential for producing savings.
                           aircraft carriers
    Question. The Navy decommissioned the USS John F. Kennedy in fiscal 
year 2006. This decreased the number of aircraft carriers to 11. 
Additionally, in the fiscal year 2006 budget request, the Navy slipped 
the delivery of CVN-78 (USS Gerald R. Ford) to 2015, creating a 2-year 
gap between the scheduled decommissioning of the USS Enterprise and the 
availability of a new aircraft carrier. During this period, under the 
proposed plan, only 10 aircraft carriers would be operational. 
Recently, there have been reports that delivery of the USS Gerald R. 
Ford could be further delayed because of technical difficulties with 
the electromagnetic aircraft launch system (EMALS).
    What is your view of the plan announced by Secretary Gates to 
permanently change the aircraft carrier force structure to 10 from the 
current number of 11?
    Answer. I support the Secretary's announced plan to move carriers 
to 5 year price points. As he stated, this would cause the Navy's 
aircraft carrier force structure to drop from 11 to 10 after 2040 
barring any change to future aircraft carrier production rates. I 
understand that future aircraft carrier force structure may be reviewed 
during the QDR. If confirmed, I will work closely with OSD, the 
Secretary of the Navy, and the Navy to understand the reasons behind 
Secretary Gates' recent decision, and any further changes that are 
being contemplated.
    Question. Is it Secretary Gates' plan to retire another aircraft 
carrier when the USS Gerald R. Ford delivers to keep the carrier force 
structure at 10 carriers?
    Answer. I am not aware of any such plan. I expect this will be a 
consideration for the 2009 QDR. I would expect any recommendation to 
reduce the carrier force permanently to 10 carriers would be discussed 
fully with Congress.
    Question. If not, do you believe that this reduced carrier force 
structure for a 2-year gap is supported by adequate analysis?
    Answer. My understanding is that the Navy has taken a close look at 
this gap and developed an appropriate mitigation plan. If confirmed, I 
will work closely with the Secretary of the Navy to ensure that 
sufficient carrier assets exist to support operational needs.
    Question. How would the aircraft carrier presence requirements of 
combatant commanders be met with only 10 operational aircraft carriers, 
particularly if the 10 carrier force structure is made permanent?
    Answer. I have not yet been briefed on specific combatant commander 
requirements for aircraft carrier availability, or how these 
requirements might be met with a temporary 10-carrier force. If 
confirmed, I will review this matter.
                           surface combatants
    Question. Until fiscal year 2009, the Future Years Defense Program 
had plans for buying DDG-1000 destroyers until the Navy was ready to 
begin procurement of a new missile defense cruiser, CG(X). During 
budget deliberations last year, Navy leadership announced that the Navy 
wanted to cancel the DDG-1000 program after building only two ships and 
re-start the DDG-51 production line. Ultimately, the Secretary of 
Defense decided not to cancel the third DDG-1000 that was requested as 
part of the fiscal year 2009 budget.
    In your judgment, can a credible and capable surface force be 
sustained at the level of multi-mission surface combatant construction 
the Navy currently plans, and if so, how?
    Answer. Large, multi-mission surface combatants form the heart of 
the Navy's battle force. Fully 88 of 313 ships in the Navy's current 
313-ship battle force are guided missile cruisers and destroyers. 
Whatever plans the Navy develops for its future fleet will revolve 
around its ability to build and maintain an affordable surface 
combatant construction program. I therefore support Secretary Gates' 
recent fiscal year 2010 budget decisions on large surface combatants. 
They appear to be made with the goal of developing a more affordable 
long-term building plan for these type ships. This will be another 
issue of great importance in the 2009 QDR. If confirmed, I will work 
with OSD and the Secretary of the Navy to ensure the development of a 
credible and capable surface combatant plan that best meets the needs 
of the Nation and efficiently leverages the shipbuilding industrial 
base.
    Question. Has the Navy produced adequate analysis of the effects of 
the new shipbuilding plan on the surface combatant industrial base?
    Answer. While I have not had an opportunity to review a detailed 
analysis on the current shipbuilding plan initiative. If confirmed, it 
would be my goal to ensure that this plan is consistent with both force 
structure needs and the objective of maintaining a viable industrial 
base.
    Question. In your opinion, how many shipyards capable of building 
surface combatants does this Nation need?
    Answer. This is a difficult question, and one I cannot answer until 
gaining access to all of the data and information available to the DOD, 
Department of the Navy, Congress, and industry. However, as Katrina 
showed, having two yards is a very good hedge against natural or 
manmade disasters, and provides an important national surge capacity in 
case of a concerted maritime challenge. If confirmed, I will work with 
OSD, the Secretary of the Navy, Congress, and industry to determine the 
appropriate number of shipyards needed to efficiently build our surface 
combatants.
                       ballistic missile defense
    Question. Do you regard ballistic missile defense as a core mission 
of the Navy?
    Answer. Yes, defense against ballistic missiles of all ranges 
should be an important mission for the Navy. If confirmed, I will work 
to assure that the unique capabilities of the Navy are leveraged to 
best effect in support of our Nation's ballistic missile defense 
programs.
    Question. Do you support the current division of responsibility in 
which the Missile Defense Agency (MDA) is responsible for ballistic 
missile defense research and development and the services are 
responsible for procurement of ballistic missile defense systems?
    Answer. I generally understand that the division of responsibility 
between the Missile Defense Agency and the services was outlined by 
OSD, but lack the detailed knowledge to comment on this subject. If 
confirmed, I would examine this question more carefully.
    Question. What steps do you believe the Navy needs to take to 
ensure that Aegis ships are available to provide radar coverage against 
potential missile attacks?
    Answer. Virtually all Aegis ships can be modified to allow them to 
track and engage ballistic missiles. The Secretary of Defense announced 
as part of his fiscal year 2010 budget roll-out that the Navy would 
provide six more Aegis ships with these modifications. These would be 
in addition to the 18 ships already modified. At this time, I do not 
know if the Navy plans to convert more ships into ballistic missile 
defense ships. If confirmed, I will work to understand the requirements 
for ballistic missile defense ships and to ensure that the Navy 
fulfills these requirements.
                         cruise missile defense
    Question. In your view, how serious is the cruise missile threat to 
the Navy?
    Answer. Very serious. Cruise missiles such as the SS-N-27 Sizzler 
are extremely difficult targets for fleet defenses. Moreover, as the 
attack on the Israeli corvette Hanit during the 2006 Lebanon War 
demonstrates, cruise missiles are proliferating even to non-state 
actors. Anti-ship cruise missiles are an enduring threat to naval 
forces.
    Question. If confirmed, what actions would you take to ensure that 
the Navy is adequately addressing this threat?
    Answer. The Navy's Naval Integrated Fire Control-Counter-air 
Program (NIFC-CA), which includes such components as the cooperative 
engagement capability (CEC), E-2D Advanced Hawkeye, and SM-6 extended 
range active missile is designed to counter advanced cruise missile and 
air threats. However, I have not had the opportunity to be fully 
briefed on these programs, and thus am not in a position to opine on 
the specific steps needed to ensure a robust defense. If confirmed, I 
will work with the Secretary of the Navy and the Chief of Naval 
Operations to support the development and fielding of these and other 
capabilities needed to meet this important mission.
                          navy force structure
    Question. The Chief of Naval Operations has publicly stated that 
the Navy has a requirement for 313 ships.
    Do you agree with this requirement?
    Answer. Since 1993, the stated requirements for the Navy's total 
ship battle force (TSBF) have fluctuated in a narrow band between 305 
and 346 ships, with an average requirement of 318-319 ships. The 
current requirement for 313 ships came out of the 2006 QDR. The 2009 
QDR will produce its number. If confirmed, I hope to take an active 
role in helping to determine what this number should be, and to help 
the Secretary of the Navy ensure the Navy's force structure 
requirements are fully articulated to OSD and Congress.
    Question. How would that goal change by implementing Secretary 
Gates' plan to reduce aircraft carrier force structure from 11 to 10?
    Answer. My understanding of the recommendation specified by 
Secretary Gates is that the Navy's aircraft carrier force structure 
could drop from 11 to 10 in the 2040 timeframe. As this change would 
not take place for 30 years, it would be too early to assess force 
structure changes that would result from a reduction in aircraft 
carriers. If confirmed, I will support the Secretary of the Navy in his 
efforts to determine the required Navy force structure for the future.
                     science and technology program
    Question. Do you believe that the current balance between short- 
and long-term research is appropriate to meet current and future 
Department of the Navy needs?
    Answer. I have not yet been briefed on the current balance between 
short-term and long-term research, so cannot comment on it. As a 
general principal, however, I believe a robust R&D effort is vital to 
the future health of the Navy and Marine Corps team. If confirmed, I 
will work with the Secretary of the Navy to maintain a robust 
Departmental R&D program, and to evaluate our Navy's Science and 
Technology Program to ensure an appropriate funding and balance.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Navy and Marine 
Corps missions?
    Answer. I firmly believe that innovative, high payoff research is 
an integral part of any science and technology investment portfolio. If 
confirmed, I would work with the Secretary of the Navy and the 
Department's Science and Technology Corporate Board (Vice Chief of 
Naval Operations, Assistant Commandant of the Marine Corps, and ASN 
RD&A) to ensure the Department of the Navy has adequately addressed 
this critical area. I would also work closely with the Director of 
DARPA, the Office of Naval Research, industry, and academia to leverage 
their technology investments.
    Question. If confirmed, what guidance would you give to ensure 
research priorities that will meet the needs of the Navy and Marine 
Corps in 2020?
    Answer. If confirmed, I will provide guidance to ensure that a 
balanced program of science and technology investment is created.
                             military space
    Question. Do you believe that the current DOD management structure 
for space programs sufficiently protects Navy space equities?
    Answer. I cannot yet answer this question. However, the Navy and 
Marine Corps both depend heavily on spaced-based combat support, and I 
have a keen interest and background in military space systems and 
operations. If confirmed, I will examine this matter closely.
    Question. In your view, how actively should the Navy be engaged in 
the management of space programs?
    Answer. Very actively. Our cadre of naval space experts have long 
played a critical role in ensuring space systems are appropriately 
prioritized and realized within both the DOD and the Department of the 
Navy.
    Question. In your view, is the Navy adequately involved in the 
requirements process for space programs?
    Answer. I believe so. I do know DON space experts are involved in 
the Joint Capabilities and Development System (JCIDS) and the National 
Security Space acquisition process. However, if confirmed, I will 
ensure that the Navy is fully involved in the requirements process.
    Question. What is the Navy's appropriate long-term role in space 
systems, other than as a user of space information and products?
    Answer. Space has long been and will remain critical to naval 
warfighting. The DON has been in the forefront of operationalizing 
space. For example, the DON currently leads the next generation 
narrowband system acquisition, Mobile User Objective System (MUOS). DON 
also contributes with joint space S&T/R&D initiatives, Naval 
Observatory enabling efforts as the provider of precise time and 
positional data to GPS and other space assets, and direct participation 
in the National Reconnaissance Office. If confirmed, I will work to 
make sure the Navy continues its long tradition in developing 
operational space systems and new applications for space-based combat 
support.
                            joint operations
    Question. If confirmed, what recommendations, if any, would you 
have for improving joint force integration?
    Answer. Joint Force Integration is essential for effective 
warfighting. If confirmed, I will work with the Secretary of the Navy 
to ensure a continual focus on joint integration as well as the 
importance of commonality and interoperability across all services to 
include the Joint Professional Military Education (JPME) nec essary to 
develop future joint force commanders. I will also work to expand 
interservice relationships, such as pursuing newAirSea battle doctrine.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military Services underinvest in their 
facilities compared to private indus try standards. Decades of 
underinvestment in installations has led to increasing backlogs of 
facility maintenance needs, substandard living and working conditions, 
and has made it harder for the Services to take advantage of new 
technologies that could increase productivity.
    Do you believe the Department of the Navy is investing enough in 
its infrastructure? Please explain.
    Answer. I have not had an opportunity to focus on the Navy's 
overall infrastructure investments. If confirmed, I will work with the 
Secretary of the Navy to ensure appropriate resources are directed to 
enhancing existing and future infrastructure projects.
                           acquisition issues
    Question. What are your views regarding the need to reform the 
process by which the Department of the Navy acquires major weapons 
systems? If confirmed, what steps would you recommend to improve that 
process?
    Answer. Acquisition reform is a top priority for President Obama 
and Secretary Gates. I understand the Department of the Navy has 
already taken significant steps to improve the acquisition process for 
major weapons systems such as by implementing a new six-gate/two-pass 
system. If confirmed, I will work to ensure that this six-gate/two-pass 
system provides adequate oversight and flexibility for DON acquisition 
efforts, and will work with OSD, the Secretary of the Navy, Congress 
and industry to pursue continual improvement in the DON acquisition 
enterprise.
    Question. Department-wide, nearly half of the DOD's 95 largest 
acquisition programs have exceeded the so-called ``Nunn-McCurdy'' cost 
growth standards established in section 2433 of title 10, U.S.C. The 
cost overruns on these major defense acquisition programs now total 
$295 billion over the original program estimates, even though the 
Department has cut unit quantities and reduced performance ex 
pectations on many programs in an effort to hold costs down. Many of 
those pro grams are being executed by the Department of the Navy.
    What steps, if any and if confirmed, would you take to address the 
out-of-control cost growth on the Department of the Navy's major 
defense acquisition programs?
    Answer. The aforementioned six-gate/two-pass system, has a system 
to control program cost growth. However, I am not aware of the details 
of this system, or if it is adequate enough to prevent future cost 
growth. If confirmed, one of my top priorities will be to review the 
system and to ensure that the Navy receives any negotiated system, item 
or service on time and on cost.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. I agree with Secretary Gates that programs that 
consistently under perform or are over cost should be immediately eyed 
for termination. In the coming budget environment, programs that 
experience critical cost growth under Nunn-McCurdy should be kept only 
if there is a clear and compelling need for the program, and there are 
no alternatives readily available. If confirmed, should a program 
experience a critical Nunn/McCurdy breech, I will work with senior 
leaders within the Department to thoroughly review and determine if 
termination or continuation is in the best interest of the warfighter 
and the taxpayer.
    Question. Many experts have acknowledged that the DOD may have gone 
too far in reducing its acquisition work force, resulting in 
undermining of its ability to provide needed oversight in the 
acquisition process. Do you agree with this assessment? If so, what 
steps do you believe the Department of the Navy should take to address 
this problem?
    Answer. I agree that the Navy cut back its design and acquisition 
workforce too far, which caused it to lose it ``technical authority.'' 
As I understand it, the Navy has taken sigmficant steps to increase its 
acquisition workforce. If confirmed, I will work with senior Navy 
leadership to identify gaps and needs and allocate the appropriate 
resources to bridge those gaps. If confirmed, adequate oversight in the 
acquisition process will be a top priority for me.
    Question. Section 852 of the NDAA for Fiscal Year 2008 establishes 
an Acquisition Workforce Development Fund to provide the resources 
needed to begin rebuilding the Department's corps of acquisition 
professionals.
    Do you believe that a properly sized workforce of appropriately 
trained acquisition professionals is essential if the Navy is going to 
get good value for the expenditure of public resources?
    Answer. Yes.
    Question. What steps do you expect to take, if confirmed, to ensure 
that the Navy makes appropriate use of the funds made available 
pursuant to section 852?
    Answer. If confirmed, I will work with senior Departmental leaders 
to identify the most appropriate usages of these funds by reviewing the 
needs identified by the warfighter and Navy programs.
    Question. Would you agree that shortened tours as program managers 
can lead to difficulties in Acquisition programs? If so, what steps 
would you propose to take, if confirmed, to provide for stability in 
program management?
    Answer. Yes. Leadership consistency is a very important part of a 
program's success. I understand that the Navy is working to provide 
longer tours for Program Managers. If confirmed, I will review these 
decisions to ensure we maintain leader-ship consistency and thereby 
help ensure success of specific programs.
    Question. Major defense acquisition programs in the Department of 
the Navy and the other military departments continue to be subject to 
funding and requirements instability. Do you believe that instability 
in funding and requirements drives up program costs and leads to delays 
in the fielding of major weapon systems? What steps, if any, do you 
believe the Navy should take to address funding and requirements 
stability?
    Answer. Instability of any kind can impact a program. I understand 
that the Navy has implemented the six-gate/two-pass system to provide 
requirements review to avoid instability in a program. If confirmed, I 
will work with the senior Navy leaders currently working requirements 
and funding issues to ensure maximum stability for Navy programs.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process. Do you agree with the 
Comptroller General's assessment? If so, what steps do you believe the 
Department of the Navy should take to address these problems?
    Answer. I understand that unrealistic program costs and schedules, 
along with unclear requirements can cause delay and costs increases. I 
am aware of the Navy's six-gate/two-pass system that was implemented to 
avoid these very issues. If confirmed, my priority will be working 
matters regarding the Navy's ability to obtain the negotiated for item 
or service at the cost and date needed.
    Question. By some estimates, the DOD now spends more money every 
year for the acquisition of services than it does for the acquisition 
of products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products. What steps, if 
any, do you believe the Navy and Marine Corps should take to improve 
the staffing, training, and management of its acquisition of services? 
Do you agree that the Navy and Marine Corps should develop processes 
and systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. The use of service contracts has grown. I understand that 
the Navy has taken action to ensure more oversight with regard to 
service contracts. If confirmed, I will work with Navy officials to 
ensure that there is proper oversight on service contracts and that 
appropriate training is provided to those individuals providing the 
oversight.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multiagency contracts. The DOD is by far 
the largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance. What steps, if any, do 
you believe the Navy and Marine Corps should take to ensure that its 
use of interagency contracts complies with applicable DOD requirements 
and is in the best interest of the Department of the Navy?
    Answer. If confirmed, I will review the Navy's usage of interagency 
contracts and will work to ensure appropriate oversight and compliance 
with DOD requirements.
    Question. In the Budget Blueprint that supports the fiscal year 
2010 presidential budget request, the administration committed to 
``set[ting] realistic requirements and stick[ing] to them and 
incorporat[ing] `best practices' by not allowing programs to proceed 
from one stage of the acquisition cycle to the next until they have 
achieved the maturity to clearly lower the risk of cost growth and 
schedule slippage.'' If confirmed, what steps would you recommend to 
help ensure that the Department makes good on this commitment?
    Answer. I am aware of the Navy's six-gate/two-pass process that was 
developed to establish set requirements and costs. If confirmed, I will 
utilize that process to review programs and ensure defined requirements 
and costs to avoid cost growth and delay.
    Question. Recent congressional and DOD initiatives have attempted 
to reduce technical and performance risks associated with developing 
and producing major defense acquisition programs, including ships, so 
as to minimize the need for cost-reimbursable contracts. Do you think 
that the Department should move towards more fixed price-type 
contracting in developing or procuring major defense acquisition 
programs? Why or why not?
    Answer. I believe that the usage of fixed or cost-type contracts 
must be made on a program-by-program decision. If confirmed, I will 
work closely with Navy officials to ensure the appropriate contract 
type is utilized.
    Question. Section 811 of the NDAA for Fiscal Year 2008 amended 
section 2306b of title 10, U.S.C., to ensure that the DOD enters 
multiyear contracts only in cases where stable design and stable 
requirements reduce risk, and only in cases where substantial savings 
are expected. The revised provision requires that data be provided to 
Congress in a timely manner to enable the congressional defense 
committees to make informed decisions on such contracts.
    Question. What types of programs do you believe are appropriate for 
the use of multiyear contracts?
    Answer. In general, I support multiyear contracts when they make 
sense, as they help to generate substantial savings. If confirmed, I 
will work with Navy's acquisition enterprise to identify those programs 
where multiyear contracts provide the best value for the Department and 
American taxpayer, and are consistent with other Departmental 
priorities.
    Question. Under what circumstances, if any, do you believe that a 
multiyear contract should be used for procuring Navy weapons systems 
that have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes?
    Answer. I do not feel ready to offer a definitive opinion on this 
question. If confirmed, I will work with DOD and Navy acquisition 
professionals to determine when to use multiyear contracts.
    Question. If confirmed, will you ensure that the Navy and the 
Marine Corps fully comply with the requirements of section 2306b of 
title 10, U.S.C., as amended by section 811 of the NDAA for Fiscal Year 
2008 (Public Law 110-181) with respect to programs that are forwarded 
for authorization under a multiyear procurement contract?
    Answer. Yes.
    Question. The statement of managers accompanying section 811 of the 
NDAA for Fiscal Year 2008 addresses the requirements for buying major 
defense systems under multiyear contracts as follows: ``The conferees 
agree that `substantial savings' under section 2306b(a)(1) of title 10, 
U.S.C., means savings that exceed 10 percent of the total costs of 
carrying out the program through annual contracts, except that 
multiyear contracts for major systems providing savings estimated at 
less than 10 percent should only be considered if the Department 
presents an exceptionally strong case that the proposal meets the other 
requirements of section 2306b(a), as amended. The conferees agree with 
a Government Accountability Office finding that any major system that 
is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multiyear 
procurement contract.
    If confirmed, under what circumstances, if any, do you anticipate 
that you would support a multiyear contract with expected savings of 
less than 10 percent?
    Answer. I do not feel ready to offer a definitive opinion on this 
question. If confirmed, I will work with DOD and Navy acquisition 
professionals to determine when to use multiyear contracts.
    Question. If confirmed, under what circumstances, if any, would you 
support a multiyear contract for a major system at the end of its 
production line?
    Answer. Again, if confirmed, I would approach this question on a 
case-by-case basis and rely on the advice of DOD and Navy acquisition 
professionals to determine when to use multiyear contracts.
    Question. What is your understanding of the new requirements 
regarding the timing of any DOD request for legislative authorization 
of a multiyear procurement contract for a particular program?
    Answer. I have not been briefed on these requirements.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy complies with 10 U.S.C. section 2366a, which requires that the 
Milestone Decision Authority for a Major Defense Acquisition Plan 
certify that critical technologies have reached an appropriate level of 
maturity before Milestone B approval?
    Answer. I have not fully reviewed this requirement and am not in 
the position to provide an opinion. However, if confirmed, I intend to 
work closely with DOD and Navy acquisition professionals to develop a 
world-class Navy acquisition enterprise that is fully compliant with 
associated laws.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logis- tics has issued a memorandum directing that the 
largest DOD acquisition programs undergo competitive prototyping to 
ensure technological maturity, reduce technical risk, validate designs, 
cost estimates, evaluate manufacturing processes, and refine 
requirements.
    Do you support that requirement?
    Answer. Yes.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy complies with this new requirement?
    Answer. If confirmed, I will work closely with DOD and Navy 
acquisition professionals to develop a world-class Navy acquisition 
enterprise that is fully compliant with all associated laws and 
requirements.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. I strongly support accession to the Law of the Sea 
Convention. Remaining a nonparty undermines our ability to further U.S. 
national security interests.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. There are many national security advantages to acceding to 
the Law of the Sea Convention. Joining the Law of the Sea Convention 
will codify navigational rights, assist in the expansion of the 
Proliferation Security Initiative, and expand our enforcement 
authorities under international law.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or des-ignated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Question Submitted by Senator Edward M. Kennedy
                           shipbuilding plan
    1. Senator Kennedy. Mr. Work, I remain concerned about the Navy's 
long-term shipbuilding plan and overall strategic direction. Despite my 
repeated requests for information, the Navy has yet to provide Congress 
sufficient justification in support of the proposal to truncate the 
DDG-1000 program at three ships and, instead, restart the DDG-51 
production line.
    It's my understanding that the Navy's desire to shift from DDG-
1000s to DDG-51s is based on a belief that DDG-51s can be configured to 
provide greater capability in ballistic missile defense, advanced anti-
ship cruise missile defense, and blue-water antisubmarine warfare. When 
testifying before the House Armed Services Subcommittee on Seapower on 
July 31, 2008, Vice Admiral McCullough stated, ``Modifying the DDG-
1000s to support these missions is unaffordable from the Navy's 
standpoint.'' Congress still has not seen the analysis to support this 
statement.
    Accordingly, it's not clear to me that the Navy's path forward 
makes the most sense. When considering DDG-1000's capabilities, it is 
my understanding that:

        <bullet> SM-2 is included in the baseline, and relatively 
        modest research and development would allow the ship to also 
        employ SM-3 and SM-6 missiles in a ballistic missile defense 
        mission;
        <bullet> The DDG-1000 could be further optimized for the 
        ballistic missile defense mission through combat systems 
        modifications, and by perhaps deleting the Advanced Gun System 
        and replacing it with additional missile tubes;
        <bullet> The current DDG-1000 radar has more potential for 
        improvement to achieve the capability required to support a 
        more robust ballistic missile defense mission, as compared to 
        the radar on the DDG-51;
        <bullet> The DDG-1000 Operational Requirements Document already 
        articulates a requirement to provide area air defense 
        capability, and that the advances in capability provided by the 
        dual band radar are well suited to counter the Hezbollah threat 
        often cited;
        <bullet> The DDG-1000 has an integrated undersea warfare suite 
        that is not only capable of blue water and littoral anti-
        submarine warfare, but is also capable of in-stride mine 
        avoidance; and
        <bullet> The DDG-1000 platform has more growth potential for 
        carrying bigger, more capable radars as well as other new 
        sensors and weapons.

    It would therefore be helpful if the Navy provided a detailed 
comparative analysis between the DDG-51 and DDG-1000. I believe this 
analysis would entail providing complete cost data on a DDG-51, as 
envisioned by the Navy after restart of the production line, and on a 
DDG-1000 that has modifications the Navy believes are critical to 
perform the ballistic missile defense, area-defense anti-air warfare, 
and bluewater antisubmarine warfare missions driving the Navy's desire 
to shift between platforms.
    Additionally, the Navy has asserted that their plan to restart the 
DDG-51 line would be budget neutral but, even if that were the case, it 
is not clear to me that the ``budget neutral'' plan is neutral when it 
comes to funding the workload necessary to support the surface 
combatant industrial base. Therefore, I would like to see how many DDG-
51s the Navy plans to procure, budget quality estimates for that plan, 
what effect that plan would have on the surface combatant industrial 
base, and any associated termination costs while the Navy waits to 
begin building the CG(X) in 2017. In past communications with the Navy, 
I have a suggested format for providing some of the information 
requested.
    Similarly, the path forward to the next generation of surface 
combatants, the CG(X), is even cloudier than it was last year. The Navy 
has still not provided:

        <bullet> Analysis defining the differences in cost and schedule 
        arising from the need to accommodate new sensors and weapons to 
        counter the newly defined future threats, as compared with the 
        cost and schedule of the previous shipbuilding program;
        <bullet> A technology roadmap for transitioning to the CG(X) 
        missile defense cruiser that replaces the Navy's previously 
        preferred alternative of relying on the DDG-1000 program as the 
        baseline for such a transition; or
        <bullet> Any joint analysis by the Navy and the Missile Defense 
        Agency setting forth additional requirements for investment in 
        Aegis ballistic missile defense systems beyond those previously 
        programmed in budget requests and the associated Future Years 
        Defense Program.

    For any cost comparison of alternative shipbuilding plans, I 
believe Congress should be provided cost estimates that assume: (1) 
improvements are made to the dual band radar only as necessary to give 
the ship capabilities comparable to the radar envisioned for restarted 
DDG-51s; and (2) improvements are made that would reflect a growth path 
to greater capability while you are waiting on the CG(X) program.
    I look forward to your assistance in obtaining this information so 
that we may continue this important dialogue on surface combatant 
production.
    Mr. Work. The current 313-ship battle force target includes 88 
``large battle network combatants''--large, multi-mission warships most 
commonly referred to as guided missile cruisers and destroyers. This 
number is far higher than any other category of ships in the Navy's 
battle force. I believe it is imperative that the Navy develop a well 
thought out and affordable building and maintenance plan for these 
``workhorses of the fleet.''
    The questions and arguments posed above are important ones. If 
confirmed, I hope to examine them in great detail, using all of the 
collected data in the Department of the Navy. Once I do this, I will be 
able to give an informed opinion on them to the Secretary of Defense, 
Secretary of the Navy, and to you and your staff.
                                 ______
                                 
               Questions Submitted by Senator John McCain
              fiscal year 2010 presidential budget request
    2. Senator McCain. Mr. Work, on April 6, 2009, Secretary Gates 
announced how the fiscal year 2010 defense budget request will reshape 
the priorities of the defense establishment. In so doing, he announced 
his decision to cut dramatically or cancel various major weapons 
systems. Are there any aspects of Secretary Gates' plan with which you 
have any difficulty? Please explain.
    Mr. Work. We fully support Secretary Gates' plan. In this 
challenging fiscal and budgetary environment, we must look hard at 
every requirement, every development plan, and every capability. We 
must also demand performance from the acquisition community and 
industry. The decisions by Secretary Gates on Navy programs were 
consistent with these requirements, and very prudent.
    In that regard, it is obvious that acquisition processes need 
reform in some very fundamental ways. Regaining control of acquisition 
processes is one of the most complex challenges that we will face. We 
are especially drawn to efforts directed at establishing cost control 
over out-of-control programs and making better use of independent cost 
estimates. The recommendations of Secretary Gates are clear statements 
that past behavior cannot continue.

    3. Senator McCain. Mr. Work, what is your view of the aspect of the 
plan that permanently changes the aircraft carrier force structure to 
10 from the current number of 11?
    Mr. Work. The Navy remains committed to a force structure of 11 
carriers for the next several decades, a commitment that Secretary 
Gates' April budget announcement supports. However, the Navy requests a 
temporary waiver to operate 10 carriers during the period between 
inactivation of USS Enterprise (CVN 65) and the commissioning of USS 
Gerald R. Ford (CVN 78). During this 33 months period, the Navy 
assesses it can meet operational commitments by adjusting operational 
and maintenance schedules.

    4. Senator McCain. Mr. Work, what is your view of the aspect of the 
plan that commits, to the exclusion of procuring other tactical fighter 
platforms, to the Joint Strike Fighter (JSF) program in light of the 
development and technology risk still associated with that program?
    Mr. Work. The Department of the Navy (DON) believes that JSF 
development and technology risk are manageable. The JSF Program Office 
is providing program-wide schedule and technology risk analysis in 
conjunction with periodic Defense Acquisition Board reviews. The timing 
of these reviews will ensure the analysis is available to support key 
acquisition milestone decisions and budget discussions.
    During the transition to the JSF, the DON is exploring a range of 
options to meet its continuing strike fighter requirements. These 
include supporting legacy aircraft; Service Life Extension Program 
(SLEP)ing some number of F/A-18 A-Ds; and procuring more F/A-18E/F 
Super Hornets. In this regard, the Navy is procuring F/A-18E/F Super 
Hornets in fiscal year 2010 via a single year procurement in PB 2010. 
The Department will continue to assess its TACAIR force structure and 
inventory requirements through this summer's Quadrennial Defense Review 
(QDR).

    5. Senator McCain. Mr. Work, in the budget blueprint that supports 
the fiscal year 2010 presidential budget request, the administration 
committed to ``set[ting] realistic requirements and stick[ing] to them 
and incorporat[ing] `best practices' by not allowing programs to 
proceed from one stage of the acquisition cycle to the next until they 
have achieved the maturity to clearly lower the risk of cost growth and 
schedule slippage.'' If confirmed, what steps, if any, would you 
recommend to help ensure that the Department makes good on this 
commitment?
    Mr. Work. We fully support the increased emphasis on upfront 
planning as specified in the 2008 changes made to DOD 5000.2 in the 
National Defense Authorization Act for Fiscal Year 2008. The defense 
acquisition process needs improvement in the areas of systems 
engineering, developmental test and evaluation, technological maturity, 
and cost estimation, and that changes are needed to strengthen a 
culture of acquisition excellence in the Department of Defense (DOD). 
We support the administration's commitment to making trade-offs among 
cost, schedule, and performance to significantly reduce cost growth in 
major defense acquisition programs. We will also ensure that 
requirements are defined and understood and that technologies are 
mature prior to entering system development, thus reducing risks to 
both cost and schedule.

                       acquisition reform policy
    6. Senator McCain. Mr. Work, what are your views regarding the need 
to reform the process by which the Navy acquires major weapons systems?
    Mr. Work. We support the ``Weapons Systems Acquisition Reform Act 
of 2009.'' We fully agree with an emphasis on sound cost estimation, 
systems engineering, and performance assessment upfront to establish a 
culture of acquisition excellence. These are all guiding principles 
that underpin our vision as an enterprise committed to getting timely, 
effective, and affordable solutions to our warfighters. A number of 
acquisition process changes have recently been initiated that will take 
some time to evaluate. However, we believe the emphasis on due 
diligence during both the requirements and technology development 
stages of any program should improve acquisition performance. We also 
intend to stress and enforce discipline of all established processes.

    7. Senator McCain. Mr. Work, if confirmed, what steps, if any, 
would you recommend to improve the acquisition process?
    Mr. Work. We are aware of the Department of Navy's two-pass/six-
gate acquisition process and will personally review its effectiveness 
in supporting program execution and oversight. We need to put more 
emphasis in the acquisition process on solid cost estimation, risk 
tolerant schedules, and understanding where the technical risks are. We 
also will insist on realistic plans for mitigating those risks. 
Moreover, we both recognize and accept that when new technical problems 
are identified we cannot hold cost and schedule constant. We believe 
the emphasis on due diligence during both the requirements and 
technology development stages of any program should improve acquisition 
performance. We also intend to stress and enforce discipline of all 
established processes.
    In addition, the health of the defense and commercial industrial 
base are critical to our national security. We will support 
collaborative efforts between the government and industry in advancing 
the state-of-the-art in science and technology in both basic and 
applied research. We will also support technology development in all 
areas that have potential military utility for the warfighter, to 
deliver high performance weapons on target, more effectively, 
efficiently, and at reasonable cost to the taxpayer.

    8. Senator McCain. Mr. Work, department-wide, nearly half of the 
DOD's 95 largest acquisition programs have exceeded the Nunn-McCurdy 
cost growth standards established in section 2433 of title 10, U.S.C. 
The cost overruns on these major defense acquisition programs now total 
$295 billion over the original program estimates, even though the 
Department has cut unit quantities and reduced performance expectations 
on many programs in an effort to hold costs down. Many of those 
programs are being executed by the Navy. What steps, if any and if 
confirmed, would you take to address the out-of-control cost growth on 
the Navy's major defense acquisition programs?
    Mr. Work. We believe increased collaboration between industry and 
Government early in the program formulation stage will ensure there is 
a realistic balance. We must establish realistic baselines before 
entering into system development which can only be accomplished with a 
thorough understanding of warfighting requirements and the maturing of 
technologies early in the process. Overestimating performance leads us 
to proceeding with immature technologies while underestimating cost 
leads us to compressing development efforts. Together these dynamics 
lead us to taking on more risk, which often leads to cost increases and 
schedule delays.
    We will continue the process initiated last year to rebuild the DON 
Cost Estimating Enterprise which was based upon an analysis of gaps 
within the existing structure. This effort culminated with the release 
of an instruction which reestablished the Naval Center for Cost 
Analysis, enabled greater insight into the costs of Major Defense 
Acquisition programs, and focused efforts on rebuilding the Naval 
System Commands Cost Analysis centers. We will continue this effort to 
ensure the Department meets increased demands across all cost 
estimating functions including Earned Value Management, Operating and 
Support analysis, and greater investment cost rigor in the early life 
of the Department's acquisition programs. The DON Cost Estimating 
community is continuing to take steps to rebuild and rebalance the core 
cost estimating capabilities within the government to better establish 
realistic cost analysis.

    9. Senator McCain. Mr. Work, what principles will guide your 
thinking on whether to recommend terminating a program that has 
experienced critical cost growth under Nunn-McCurdy?
    Mr. Work. The principles that will guide our decisions will be the 
Nunn-McCurdy certifications as modified by the Weapons Systems 
Acquisition Reform Act of 2009 on whether:

        <bullet> The root cause of the program's Nunn-McCurdy breach is 
        properly identified, understood, and correctable;
        <bullet> The program is essential to national security;
        <bullet> No alternative will provide equal or greater 
        capability at less cost;
        <bullet> New program or unit cost estimates are reasonable; and
        <bullet> Management structure for program is adequate to manage 
        and control unit costs.

    We will use these certifications to evaluate a program for any 
significant breach of its baseline and not just if it's a unit cost 
issue.

    10. Senator McCain. Mr. Work, recent congressional and DOD 
initiatives have attempted to reduce technical and performance risks 
associated with developing and producing major defense acquisition 
programs, including ships, so as to minimize the need for cost-
reimbursable contracts. Do you think that the Department should move 
towards more fixed price-type contracting in developing or procuring 
major defense acquisition programs? Why or why not?
    Mr. Work. Yes. We are committed to a thorough analysis that ensures 
the right contract type at the right time that balances risk and 
ensures best value to the government. We fully support the DOD policy 
to examine the increased use of fixed-price type contracts in the 
procurement of major defense acquisition programs.

            s.454, the levin-mccain acquisition reform bill
    11. Senator McCain. Mr. Work, recently, Chairman Levin and I 
sponsored acqui sition reform legislation, titled: ``Weapons Systems 
Acquisition Reform Act of 2009.'' The legislation recognized that vital 
to reforming how we buy the biggest and most expensive weapons systems 
is to start them off right--by emphasizing sound systems engineering so 
that we can obtain reliable technological readiness assessments and 
independent cost estimates upfront. The more we understand technology 
risk early and manage that risk, the less likely that such risk will 
present themselves later in the acquisition process and blow out costs. 
What is your assessment of that bill, and did we get anything wrong?
    Mr. Work. We strongly support the spirit and intent of the 
``Weapons Systems Acquisition Reform Act of 2009''. We agree that the 
defense-acquisition process needs improvement in the areas of systems 
engineering, developmental test and evaluation, technological maturity, 
and cost estimation, and that changes are needed to strengthen a 
culture of acquisition excellence in DOD. The DON is committed to 
making trade-offs among cost, schedule, and performance to 
significantly reduce cost growth in major defense acquisition programs. 
The DON is working closely with DOD to develop a common approach to 
implementing the requirements. DON is already involved with acquisition 
process improvements, such as implementing the two-pass/six-gate 
governance in 2008, and is committed and working diligently to 
implement required improvements that will require a longer-term 
implementation cycle.

                           tactical aviation
    12. Senator McCain. Mr. Work, the Navy is facing a potential 
shortfall of strike fighter aircraft in the next decade even if the 
Navy continues to buy F/A-18E/F aircraft and F-35 JSF aircraft at the 
rate projected in last year's budget. What is your assessment of this 
situation and what actions should the Navy take to address this 
potential shortfall?
    Mr. Work. The Navy and Marine Corps share a common invento of 623 
legacy F/A-18 A-D aircraft. Navy and Marine Corps internate F/A-18 A-C 
strike fighter squadrons into carrier air wings and Marine air groups 
under the charter of TACAIR Integration (TAI). There are four 
considerations to mitigate negative strike fighter inventory trends:

          1. Maintain wholeness of the JSF program. Department strike 
        fighter inventory projections are based on the following 
        assumptions: the F-35B will reach IOC in 2012 and F-35C will 
        reach IOC in 2015; and that JSF will deliver at planned 
        quantities/cost. Any program slips, major costs increases, or 
        decreases to planned procurement quantities may exacerbate the 
        DON strike fighter shortfall.
          2. Extending the service life of F/A-18 A-D Hornets. Over 
        half of the DON'S Hornets are beyond 6,000 flight hours, 
        towards a currently approved 8,600 flight hour service life. 
        Extending the service life of as many as 300 of these aircraft 
        is an essential element to maintaining available DON strike 
        fighter inventory through transition to JSF. Analysis is 
        ongoing within the Department to refine cost estimates and the 
        process for executing this service life extension.
          3. Continued sustainment and support of currently fielded 
        legacy aircraft (AV-8, EA-GB, F/A-18 A-D) through transition to 
        JSF. These aircraft are the bulk of the Department's current 
        TACAIR inventory and require continuous support--including 
        program related engineering and logistics--though the end of 
        transition to JSF, currently envisioned to be out to 2023.
          4. Additional investment in F/A-18E/F Block II Super Hornet 
        procurement. In PB 10, F/A-18E/Fs are budgeted for single year 
        procurement in fiscal year 2010. Future procurements are being 
        considered in the 2009 QDR.

    The Department will re-assess force structure requirements and 
inventory invest- ments this summer during the QDR.

    13. Senator McCain. Mr. Work, in your view, should the Navy 
continue to operate the 10 carrier air wings that support the current 
fleet of 11 aircraft carriers, or should the air wing force structure 
be modified to reflect a planned reduction to a permanent level of 10 
aircraft carriers?
    Mr. Work. The Navy remains committed to a force structure of 11 
carriers and 10 air wings for the next several decades. However, 
between the decommissioning of USS Enterprise and the commissioning of 
USS Ford, the Navy requests to temporarily decrease its aircraft 
carrier fleet from 11 to 10 ships. During this 33 month period, the 
Navy will continue to require and utilize each of its 10 carrier air 
wings (CVW) to meet its deployment schedule and to maintain its ability 
to respond to emergent operational requirements.

    14. Senator McCain. Mr. Work, alternatives for maintaining 
sufficient strike assets are limited if there are new schedule 
difficulties with the JSF program. It appears that the Navy's options 
for extending the service life of existing F/A-18 aircraft are limited 
and procurement of additional F/A-18 aircraft beyond those planned last 
year may be more difficult with the Secretary of Defense's recent 
announcement of a reduction of nine F/A-18 aircraft from the number 
originally planned for the fiscal year 2010 program. What other 
potential alternatives do you see for maintaining sufficient strike 
assets if there were any additional slippage in the initial operating 
capability date for the F-35 JSF?
    Mr. Work. The DON is closely monitoring the JSF program. JSF is 
currently scheduled for an F-35B IOC of 2012 and an F-35C IOC of 2015. 
The Department is refining cost estimates and process for extending the 
service life for as many as 300 legacy F/A-18 A-D aircraft from 8,600 
flight hours to 10,000 flight hours through a service life extension 
program--service life extension is completely within engineering 
feasibility for this number of aircraft.
    Maintaining JSF wholeness, continued support of legacy aircraft, 
SLEP of F/A-18 A-D and continued procurement of F/A-18E/F are options 
being pursued to provide the strike fighter inventory necessary to 
support the DON's force structure requirements.
    The Navy is procuring F/A-18E/F Super Hornets in fiscal year 2010 
via a single year procurement in PB 10. The Department will continue to 
assess its TACAIR force structure and inventory requirements through 
this summer's QDR.

    15. Senator McCain. Mr. Work, is it a viable solution to consider 
purchasing additional F/A-18 Super Hornets, the only new strike fighter 
aircraft in production? If not, how will the Navy expect to solve this 
shortfall?
    Mr. Work. Maintaining JSF wholeness, continued support of legacy 
aircraft, SLEP of F/A-18 A-D and continued procurement of F/A-18E/F are 
options to provide the strike fighter inventory necessary to support 
the DON's force structure requirements. The Navy is procuring F/A-18E/F 
Super Hornets in fiscal year 2010 via a single year procurement in PB 
10. The Department will continue to assess its TACAIR force structure 
and inventory requirements through this summer's QDR.

                   f-35 joint strike fighter program
    16. Senator McCain. Mr. Work, the Services are planning on 
purchasing approximately 2,450 JSFs at a cost of over $300 billion, a 
sum that reflects a cost growth of nearly 47 percent beyond original 
2002 estimates. Recently, the Government Accountability Office issued a 
report on the JSF program that was critical of its past cost overruns 
and schedule slips, and predicted that development will cost more and 
take longer than what has been reported to Congress. In November 2008, 
a Pentagon Joint Estimating Team reportedly said the JSF program would 
require an additional 2 years of testing and would need another $15 
billion to cover new development costs.
    If the F-35 program costs continue to significantly increase and 
the F-35 development does not go as well as promised--draining 
resources from other priority programs that are needed by the Navy--
what actions would you recommend the Department take to remedy strike-
fighter shortfalls and preserve its limited procurement base?
    Mr. Work. The DON believes that JSF development and technology risk 
are manageable. The JSF Team closely monitors all risks and provides 
program-wide schedule and technology risk analysis in conjunction with 
periodic Defense Acquisition Board reviews. The timing of these reviews 
will ensure the analysis is available to support key acquisition 
milestone decisions and budget discussions.
    The Navy and Marine Corps share a common inventory of 623 legacy F/
A-18 A-D aircraft. Navy and Marine Corps integrate F/A-18 A-C strike 
fighter squadrons into carrier air wings and Marine air groups under 
the charter of TAI. There are four considerations to mitigate negative 
strike fighter inventory trends:

          1. Maintain wholeness of the JSF program. Department strike 
        fighter inventory projections consider that F-35B will IOC in 
        2012 and F-35C will IOC in 2015, and that JSF will deliver at 
        planned quantities, as a foundation. The Department needs JSF 
        to deliver planned quantities at a delivery rate that supports 
        these planned initial operational capability dates. Any further 
        slips or decreases to planned procurement quantities further 
        exacerbates future DON strike fighter inventory issues.
          2. Extending the service life of F/A-18 A-D Hornets. Over 
        half of the DON Hornets are beyond 6,000 flight hours, towards 
        a currently approved 8,600 flight hour service life. Extending 
        the service life of as many as 300 of these aircraft is an 
        essential element to maintaining available DON strike fighter 
        inventory through transition to JSF. Analysis is ongoing within 
        the Department to refine cost estimates and the process for 
        executing this service life extension.
          3. Continued sustainment and support of currently fielded 
        legacy aircraft (AV-8, EA-6B, F/A-18 A-D) through transition to 
        JSF. These aircraft are the bulk of the Department's current 
        TACAIR inventory and require continuous support--including 
        program related engineering and logistics--though the end of 
        transition to JSF, currently envisioned to be out to 2023.
          4. Additional investment in F/A-18E/F Block II Super Hornet 
        procurement. In PB 10, F/A-18E/F are budgeted for single year 
        procurement in fiscal year 2010.

    The DON will continue to guide JSF development and update 
assessments of costs and scheduled deliveries to the fleet. We will 
monitor F/A-18 A-D flight hours flown and update cost estimates for 
needed life extensions and sustainment. Procurement of additional F/A-
18E/F Super Hornets will continue to be a viable alternative in the 
near term. All these factors will be taken into account when the 
Department determines how best to satisfy the strike fighter force 
structure needs established in the QDR.

                           shipbuilding plan
    17. Senator McCain. Mr. Work, the most recent Navy 30-year 
shipbuilding plan included arguably over-optimistic assumptions about 
the unit costs of ships and excluded any funding for a replacement for 
the current fleet of Trident ballistic missile submarines. Do you agree 
that the 30-year shipbuilding plan should reflect realistic cost 
estimates and include all important shipbuilding efforts for that 
document to be useful for decisionmakers?
    Mr. Work. The 30-year shipbuilding plan, as submitted to Congress, 
reflects the best estimates for the ships included in the plan. The 
near-term section of the future plan reflects cost estimates that are 
predicted, in most cases, on existing production lines for ships either 
currently being procured or very near the completion of contract 
negotiations for their procurement. The period covered by about 10-20 
years in the future, largely includes what we expect to be the economic 
conditions that the shipbuilding industry will face and this too is 
based on our best understanding of the labor rates and material cost 
escalation that this industry will incur. The period beyond about 20 
years, out to the end of the report, is a planning range and the costs 
included in this part of the report reflect those costs that the Navy 
believes to be affordable for the ship types that will be procured in 
the period. Since there are essentially no designs to use as a basis 
for the cost models, we believe that projecting an affordable cost for 
these ships is the appropriate metric to use. This introduces 
discipline in the expectations for what these ships should be able to 
do since it is unlikely that there would be infinite resources 
available for their procurement.
    A majority of the ships in the 30-year shipbuilding plan have not 
yet been designed and therefore cost must be based on the best estimate 
of what the new ship will be including new technology, and appropriate 
hull size and propulsion system. As more accurate cost estimates are 
determined in future ship development, the Navy will adjust the average 
annual investment objective or revisit individual ship and/or force 
warfighting requirements as appropriate. Navy's goal in producing the 
shipbuilding plan is always to provide a balanced capability, with 
acceptable levels of risk that provides stable industry demand at 
reasonable cost.
    In addition to the National Security Strategy, the statutory 
guidelines required the report to reflect the QDR. The latest QDR is 
ongoing in parallel with the National Security Strategy work. Also, the 
Nuclear Posture Review, which has direct bearing on the numbers of 
strategic ballistic missile submarines, is due for completion incident 
with submission of the fiscal year 2011 budget. In addition, a 
Ballistic Missile Defense Review is ongoing and is also due for 
completion with the fiscal year 2011 budget. These efforts will likely 
have a substantive impact on the Navy's force structure requirements.

    18. Senator McCain. Mr. Work, in your view, what level of funding 
will the Navy need to execute its 30-year shipbuilding plan, and 
considering competing priorities, do you believe this level of funding 
is realistic?
    Mr. Work. As the National Security Strategy is due for release this 
summer, the Navy considers it prudent to defer its fiscal year 2010 
report and submit its next report concurrent with the President's 
fiscal year 2011 budget.
    In addition to the National Security Strategy, the statutory 
guidelines required the report to reflect the QDR. The latest QDR is 
ongoing in parallel with the National Security Strategy work. Also, the 
Nuclear Posture Review, which has direct bearing on the numbers of 
strategic ballistic missile submarines, is due for completion incident 
with submission of the fiscal year 2011 budget. In addition, a 
Ballistic Missile Defense Review is ongoing and is also due for 
completion with the fiscal year 2011 budget. These efforts will likely 
have a substantive impact on the Navy's force structure requirements.
    The President's budget submission for fiscal year 2010 represents 
the best overall balance between procurement for future ship and 
aircraft capability with the resources necessary to meet operational 
requirements and affordability.

                           aircraft carriers
    19. Senator McCain. Mr. Work, under his recently announced budget 
plan, the Secretary of Defense proposed that only 10 aircraft carriers 
be operational. But, we may need 11: the slip in the delivery of the 
CVN-78 (USS Gerald R. Ford) to 2015 created a 2-year gap between the 
scheduled decommissioning of the USS Enterprise and the availability of 
a new aircraft carrier. That gap could be longer because of technical 
difficulties with that carrier's electromagnetic aircraft launch system 
(EMALS). What is your view of the plan that Secretary Gates announced 
to permanently change the aircraft carrier force structure to 10 from 
the current number of 11?
    Mr. Work. The Navy is currently committed to an 11-carrier force 
structure for the next several decades, and this commitment was 
supported by Secretary Gates during his April budget announcement. 
However, as you have pointed out, the Navy requires temporary 
legislation to operate with 10 carriers during the period between 
inactivation of USS Enterprise (CVN 65) in November 2012 and the 
delivery of Gerald R. Ford (CVN 78) in September 2015. Navy assesses it 
can meet operational commitments during this approximately 33-month gap 
by adjusting both carrier and air wing maintenance and operational 
schedules. The carrier force structure, along with the entire 
battleforce, is being considered in the QDR. EMALS development is 
currently on track to meet the planned delivery of CVN 78 in September 
2015.

    20. Senator McCain. Mr. Work, in your view, should DOD retire 
another aircraft carrier when the USS Gerald R. Ford is delivered to 
keep the carrier force structure at 10 carriers?
    Mr. Work. The Navy has no current plans to retire an aircraft 
carrier upon delivery of USS Gerald R. Ford (CVN 78). The Navy is 
currently committed to an 11 carrier force structure for the next 
several decades, and this commitment was supported by Secretary Gates 
during his April budget announcement. However, as you have pointed out, 
the Navy requires temporary legislation to operate with 10 carriers 
during the period between inactivation of USS Enterprise (CVN 65) in 
November 2012 and the delivery of Gerald R. Ford (CVN 78) in September 
2015. Navy assesses it can meet operational commitments during this 
approximately 33-month gap by adjusting both carrier and air wing 
maintenance and operational schedules. The carrier force structure, 
along with the entire battleforce, is being considered in the QDR.

    21. Senator McCain. Mr. Work, do you believe that the requirements 
of the combatant commanders for an aircraft carrier presence be met 
with only 10 operational aircraft carriers?
    Mr. Work. The Navy can sustain current COCOM demand for carrier 
presence with 10 operational aircraft carriers for a relatively short 
and defined period of time with moderate risks by leveraging the 
inherent flexibility of the Fleet Response Plan. Navy will continue to 
evaluate projected COCOM demand and use the QDR and other strategic 
planning rocesses to match carrier force structure to projected demand; 
this requirement will be based on fiscal and operational risk.

    submarine strategic weapons programs cost reimbursable contracts
    22. Senator McCain. Mr. Work, for over 30 years the Navy has 
manufactured and sustained its Trident submarine and other related 
weapon systems under a cost-reimbursable contract. This is unacceptable 
to me. After a 30-year procurement history, costs and design are (or 
should be) stable and enough is (or should be) known, about technology 
risk associated with those programs so that the Navy should be 
contracting here on a fixed-price--not cost-reimbursable--basis. 
However, the Navy's Strategic Weapons Programs (SSP), which 
manufactures and sustains logistical support for nuclear submarines, 
continues to award--inappropriately, in my view--multi-hundred million-
dollar cost-plus contracts for, among other things, the production of 
the D-5 Trident Missile System. Why is there this anomaly with the 
Navy's submarine programs?
    Mr. Work. As the Fleet Ballistic Missile Program has matured over 
the last four decades, SSP has developed and implemented an acquisition 
strategy that maintains a primary focus on safety and reliability, 
while managing cost risk at or below budget. Because of the strategic 
importance of the system, any deviation from this successful 
acquisition strategy could engender unnecessary unintended 
consequences, and jeopardize the safety and reliability of the weapon. 
At inception, during concept formulation and advanced development, Cost 
Plus Fixed Fee (CPFF) contracts were used, placing maximum cost risk on 
the Government, due to the overall program uncertainty and rapidly 
changing requirements. As the program matured into full scale 
development, the contract type moved along a continuum to Cost Plus 
Incentive Fee (CPLF) with a conservative share ratio of 90/10 or 80/20. 
Eventually, as the requirements stabilized the share ratio was 
increased to 70/30 for initial production activities and 50/50 for 
mature production efforts.
    SSP has committed to transition the mature full-rate production 
effort for TRIDENT II D5 Subsystems to fixed-price contract beginning 
in fiscal year 2011. We anticipate that this will result in 
approximately 50 percent of all contracted dollars being fixed price. 
SSP is developing the transition plan for mature full rate production 
items including the appropriate contractual and acquisition reviews to 
support completion by 2011. As always, we will continue to monitor and 
manage technical risk throughout this transition and make any 
adjustments that are deemed necessary to ensure we maintain the 
program's preeminent responsibility for safety and reliability.

    23. Senator McCain. Mr. Work, will you look into this contracting 
folly and ensure me that the Navy will begin awarding contracts on this 
submarine program and other SSPs under fixed price-type contracts, 
where appropriate?
    Mr. Work. SSP has committed to transition the mature full-rate 
production effort for TRIDENT II D5 Subsystems to fixed price contract 
beginning in fiscal year 2011. We anticipate that will result in 
approximately 50 percent of all contracted dollars being fixed price. 
SSP is developing the transition plan for mature full rate production 
items including the appropriate contractual and acquisition reviews to 
support completion by 2011. As always, we will continue to monitor and 
manage technical risk throughout this transition and make any 
adjustments that are deemed necessary to ensure we maintain the 
program's preeminent responsibility for safety and reliability.
                                 ______
                                 
               Questions Submitted by Senator John Thune
            strategic dispersal of the nuclear carrier fleet
    24. Senator Thune. Mr. Work, the Navy has undergone and completed a 
Final Environmental Impact Statement. The Secretary of the Navy, in 
consultation with the Chief of Naval Operations, signed a Record of 
Decision to develop a second nuclear-carrier homeport on the east coast 
on January 14, 2009, and determined that it is in the best national 
security interest of the Nation to homeport a nuclear powered aircraft 
carrier (CVN) at Naval Station Mayport. During your Senate Armed 
Services Committee hearing on April 28, 2009, understanding the 
sensitivities surrounding this matter, I asked you what you thought of 
strategically dispersing our carrier fleet on the east coast and 
whether or not you agreed with the Navy's requirement to make Mayport 
nuclear ready and continue the long-term practice of strategic 
dispersal. At the time, you answered that you understood the issue and 
that it was to be made part of the QDR but that you did not have enough 
information to provide an answer as to how you felt about the Navy's 
requirement. This was the culmination of 2\1/2\ years of effort to 
ensure compliance with environmental regulations as well as strategic 
needs. What is your view of strategic dispersal?
    Mr. Work. The strategic dispersal of the fleet has long been an 
issue of great im- portance to Navy leadership. The laydown of U.S. 
conventional forces has also been a matter of great importance to DOD 
leadership. Accordingly, as I understand it, the issue of fleet 
dispersal is now part of DOD's global posture deliberations in the 2009 
QDR. If confirmed, I hope to take part in any global posture 
deliberations, and any debates over where our carriers are homeported.

    25. Senator Thune. Mr. Work, do you understand its importance to 
the Navy?
    Mr. Work. The Navy's requirement for strategic dispersal can be 
traced back to the turn of the century, when the United States built 
and maintained separate Atlantic and Pacific fleets, and built a Panama 
Canal to facilitate fleet concentration. Strategic dispersal remained 
important throughout the Cold War, and remains important to this day. 
The exact laydown of the fleet is derived from both strategic analysis 
and judgment.

    26. Senator Thune. Mr. Work, how do you view this Navy requirement 
based on the information you have?
    Mr. Work. The decision to address the carrier homeport decision as 
part of the QDR does not diminish the importance of strategic dispersal 
in any way. The QDR will likely try to balance the requirement for 
strategic dispersal with the National Defense Strategy, joint force 
requirements, and cost. If confirmed, I hope to be part of these 
deliberations.

    27. Senator Thune. Mr. Work, if confirmed, what role do you 
envision playing in the QDR process?
    Mr. Work. If confirmed, I hope to play an active role in the QDR 
process. However, the Under Secretary of the Navy performs those duties 
as prescribed by the Secretary of the Navy. As such, I would look to 
the Secretary to direct my exact role in the QDR process.

    28. Senator Thune. Mr. Work, do you believe it is important to 
proceed with planning and design of the nuclear maintenance facility at 
Naval Station Mayport based on the information you have?
    Mr. Work. It is my understanding that additional decisions beyond 
the recommended dredging and pier maintenance at Naval Station Mayport 
will be made during the upcoming QDR. I do not have enough information 
on the planning and design of a nuclear maintenance facility at Naval 
Station Mayport to fully answer this question. However, if confirmed, 
and if tasked by the Secretary of the Navy to do so, I will look 
closely at this issue.

                            carrier numbers
    29. Senator Thune. Mr. Work, section 5062 of title 10 of the U.S. 
Code states: ``The naval combat forces of the Navy shall include not 
less than 11 operational aircraft carriers.'' In your document, 
``Strategy for the Long Haul,'' you project that the Navy will deploy 
10 carriers from 2013 to 2038. As Under Secretary of the Navy, how will 
you ensure that the legal requirement of not less than 11 carriers will 
be met?
    Mr. Work. If confirmed as Under Secretary of the Navy, I will work 
to the best of my abilities to enforce any legal requirement 
established by Congress.

                         anti-submarine warfare
    30. Senator Thune. Mr. Work, in your February 2009 paper you 
discuss increasing the submarine force. In light of last week's 
demonstration of Chinese submarines in Qingdao, and the world's overall 
increase in submarine construction, what do you see as the future of 
anti-submarine warfare?
    Mr. Work. Command of the seas depends on achieving and maintaining 
undersea superiority. The proliferation of new, extremely quiet diesel-
electric submarines--augmented with air independent propulsion systems 
that allow them to patrol for extended periods of time without having 
to recharge their batteries--underlines the importance of maintaining 
our undersea superiority. Antisubmarine warfare today is a ``team 
sport'' that requires highly capable submarines of our own. The future 
of antisubmarine warfare will include an increase in production of the 
Virginia class SSNs to two per year. However, it will also require that 
the Navy have a long-range maritime patrol aircraft, ASW helicopters, 
ASW capable surface ships, unmanned systems, and even more advanced 
capabilities to combat the growing threat. As a result, the Navy's P-8 
Poseidon program, SH-60 Romeos, the LCS with its ASW module, the new 
Broad Area Maritime Surveillance (BAMS) UAV, and a robust ASW research 
and development effort are as important to our future antisubmarine 
warfare capabilities as our SSNs.

                       littoral combat ship cost
    31. Senator Thune. Mr. Work, the Navy has requested two more 
Littoral Combat Ships (LCS) in 2009. We anticipate, based on Secretary 
Gates' words, three more to be requested in 2010. The Navy has two 
designs for the LCS sea frame; one primed by Lockheed Martin and the 
other by General Dynamics. Although originally a down-select to one sea 
frame design was envisioned early in the program, recent comments by 
Mr. John Young, USD(AT&L), indicates both LCS designs could be procured 
in significant quantities. The Navy ultimately plans to procure 55 LCS 
sea frames. It is my understanding that the Navy has deferred a 
decision to choose one version over another of the LCS for a variety of 
reasons. If the Navy were to choose to continue with two variants, 
would it make sense to strive for as much commonality as possible in 
fitting out those ships?
    Mr. Work. As I understand it, the Navy desires to keep both 
versions in production for an extended period of testing before 
deciding whether or not to move to a single hull. As a general 
principle, I endorse the idea of common combat systems with open 
architectures as well as common ship systems. If confirmed, I would 
work to make sure that smart LCS acquisition strategies are developed, 
that commonality opportunities for the LCS ships are fully explored.

    32. Senator Thune. Mr. Work, how will the Navy ensure commonality?
    Mr. Work. Both component and system commonality opportunities 
should be considered and business cases must be developed and evaluated 
for each alternative to understand the acquisition and/or life cycle 
cost savings and associated investment (if required) for them. A final 
decision should be based on which alternative provides the greater 
return on investment of taxpayer dollars.

    33. Senator Thune. Mr. Work, do you think 55 is the right number 
based on the information you have?
    Mr. Work. The current requirement for 55 LCSs was developed during 
the 2006 QDR. The requirement for 55 ships will be reviewed and 
validated or changed during the 2009 QDR. However, Secretary Gates' 
decision to accelerate the LCS buy indicates how important this 
platform is to the future Navy. If confirmed, I hope to take part in 
deliberations over the size of the future LCS fleet and the size of the 
overall battle force.

                             313-ship navy
    34. Senator Thune. Mr. Work, earlier this year, the Chief of Naval 
Operations, Admiral Roughead, said, ``313 is still the floor when it 
comes to the size of the fleet we need to carry out our maritime 
strategy. The capacity of our fleet--the number of ships we have--
matters greatly today and I believe will matter even more in the 
future.'' Are you committed to the Navy's uniformed leaders' plan of 
building at least 313 ships?
    Mr. Work. I am committed to providing the best, most balanced, and 
most capable Navy possible within the confines of expected future 
resource streams. I agree with Admiral Roughead that the fleet must 
have both the capability and the capacity to accomplish the missions 
the Navy is asked to fulfill. The exact numbers and types of ships 
needed will be dependent upon our national strategy and projected Navy 
toplines. I anticipate the ongoing QDR will help shape the necessary 
makeup of naval forces and may change the overall battle force number. 
If confirmed, I intend to take part in the deliberations over the size 
of the future fleet.

    35. Senator Thune. Mr. Work, do you believe that is the right 
number based on the information you have?
    Mr. Work. Since the 1992-1993 Bottom-Up Review, the requirement for 
a ``two war'' fleet has fluctuated between 305 to 346 ships, with an 
average of about 318 ships. The current requirement for 313 ships is 
therefore consistent with past reviews. This number might change if the 
national strategy changes, or if the DON is given different guidance 
from the Secretary of Defense.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                               navy ships
    36. Senator Vitter. Mr. Work, what are your thoughts on the future 
of shipbuilding, specifically the LPD-17?
    Mr. Work. The DON must develop an affordable long-term shipbuilding 
plan that provides the foundation for the future Navy force structure. 
This stable long-term shipbuilding plan would reduce industrial base 
volatility and allow the industry to better match investments to meet 
Navy capabilities.
    The Navy and Marine Corps have thoroughly discussed the number of 
LPD-17 ships required. The CNO and CMC believe the requirement is for 
11 ships. In the January 2009 Report to Congress on Naval Amphibious 
Force Structure, the current CNO and CMC reaffirmed that requirement 
and agreed to sustain an amphibious force of about 33 total amphibious 
ships (30 operationally available) in the assault echelon, evenly 
balanced at 11 aviation capable ships, 11 LPD-17 class ships, and 11 
LSD 41 class ships. A summary of the broader amphibious lift agreement:

        <bullet> The amphibious lift requirement is to lift the assault 
        echelon (AE) of 2.0 Marine Expeditionary Brigades (MEBs).
        <bullet> The 33-ship force accepts risk in the arrival of 
        combat support and combat service support elements of the MEB 
        but has been adjudged to be adequate in meeting the needs of 
        all parties within today's fiscal limitations.
        <bullet> The Navy currently has a total of 31 Assault Echelon 
        ships in commission.

    With respect to the LPD-17 Program, four ships have been delivered, 
five additional ships are currently under contract and in various 
stages of construction. A Request for Proposal for the design and 
construction of the 10th ship of the program was released by the Navy 
in May 2009 and funding for advance procurement for the 11th LPD is 
included in the fiscal year 2010 budget request
    The Navy is making a significant investment in expeditionary lift 
capacity and will continue to work with the Marine Corps to meet 
requirements within budgetary constraints.

    37. Senator Vitter. Mr. Work, do you believe that commonality for 
hulls should be utilized more and should be mandated to an extent to 
realize cost savings?
    Mr. Work. No, I do not believe commonality of hulls should be 
automatically mandated. That said, the Navy and industry have stated 
for several years that reducing the number of ship hull forms would 
help stabilize the shipbuilding program and have the added benefit of 
reducing cost. I support the idea of doing so.
    In that regard, the Navy's long-range vision reduces the types and 
models of ships, maximizes the reuse of ship designs and components, 
and implements open architecture for software and hardware systems and 
mission systems modularity. The Navy is proposing that variants which 
leverage existing production lines be explored. For example, for 
LCC(R), in addition to reviewing the land based solutions, there are 
two ship variants being addressed in the AoA, LPD-17 and T-AKE. The 
potential requirement for a LSD/LPD(X) is also being explored.
                                 ______
                                 
              Question Submitted By Senator Susan Collins
                             313-ship navy
    38. Senator Collins. Mr. Work, you have written extensively on 
defense strategy. In your recently released report titled: ``The U.S. 
Navy: Charting A Course For To- morrow's Fleet,'' you cited the minimum 
two-war standard for the Navy's Total Force Battle Network, which was 
supported by substantial analyses and 3 successive QDRs, was 346 ships, 
with an average objective fleet target of about 320 ships. The Chief of 
Naval Operations has stated that a fleet of 313 ships is a floor, not a 
ceiling. Do you believe this figure is sufficient in light of the 
requirements the Navy is facing today?
    Mr. Work. The DOD is currently conducting a QDR, and three separate 
reviews: Nuclear Posture Review; Ballistic Missile Defense Review; and 
Space Review. All of these efforts will likely have a substantive 
impact on the Navy's force structure requirements.
    Until the Navy has completed these ongoing studies and determined 
where the Nation's priorities are in these critical areas, it is 
difficult to determine what lies ahead for Navy force structure. 
Although, absent changes in the missions assigned to the Navy, both in 
combat scenarios and in the complex security environment of today, we 
are committed to building a force structure that does not place our 
sailors, airmen, and marines at risk in the event they are called upon 
to complete their assignments--whether or not this is a 313-ship force, 
we will ensure they have the tools they need to be successful in 
pursuit of their mission and that they are able to do so without undue 
risk.
                                 ______
                                 
    [The nomination reference of Robert 0. Work follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert O. Work, of Virginia, to be Under Secretary of the Navy, 
vice Dionel M. Aviles, resigned.
                                 ______
                                 
    [The biographical sketch of Robert O. Work, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Robert O. Work

    Robert Work is currently Vice President. Strategic Studies 
at the Center for Strategic and Budgetary Assessments (CSBA). 
During a 27-year career in the Marine Corps, Mr. Work held a 
wide range of command, leadership, and management positions. 
His last assignment was as Military Assistant and Senior Aide 
to the Honorable Richard J. Danzig, 71st Secretary of the Navy.
    Since retiring in 2001, Mr. Work has focused on defense 
strategy and transformation and maritime affairs. He has 
written and spoken extensively on U.S. Navy and Marine Corps 
strategies and programs: directed and analyzed three war game 
series for the Office of Net Assessment, Office of the 
Secretary of Defense; contributed to Department of Defense 
studies on global basing and emerging military missions; and 
provided support for the 2006 Quadrennial Defense Review. He 
has also studied and prepared several reports on future defense 
challenges, including the changing nature of undersea warfare, 
power projection against regional nuclear powers, and power 
projection against future anti-access/area denial networks.
    Mr. Work earned a Bachelor of Science degree in Biology 
from the University of Illinois; a Master's of Science in 
Systems Management from the University of Southern California; 
a Master's of Science in Space System Operations from the Naval 
Postgraduate School; and a Master's in International Public 
Policy from the Johns Hopkins School of Advanced International 
Studies. He is a member of the International Institute for 
Strategic Studies and an Adjunct Professor at George Washington 
University, where he teaches defense analysis and roles and 
missions of the Armed Forces.

                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Robert O. Work 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert Orton Work (Robert O. Work, Robert Work, Bob Work).

    2. Position to which nominated:
    Under Secretary of the Navy.

    3. Date of nomination:
    April 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 17, 1953; Charlotte, NC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cassandra Baugher Work; formerly Cassandra Faye Baugher.

    7. Names and ages of children:
    Kendyl Taylor Work, 18.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Illinois, 09/70-08/74, BS (Biology), 08/08/74.
    University  of  Southern  California,  01/78-01/80,  MS  in  
Systems  Management,  01/31/80.
    Naval Postgraduate School, 06/88-09/90, MS in Systems Technology 
(Space Operations), 09/27/90.
    Johns  Hopkins  University  School  of  Advanced  International  
Studies  (SAIS),  08/92-05/93,  Masters  in  International  Public  
Policy,  05/26/94.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    I was commissioned a 2nd Lieutenant in the U.S. Marine Corps on 
August 8, 1974. I retired as a Colonel on September 1, 2001 (terminal 
leave began in May 2001). The following is a list of my assignments 
starting in May 1993. Start and end dates are approximate due to 
travel/leave between duty stations:

        <bullet> May 1993-May 1994, Lieutenant Colonel, USMC, Director 
        of Operations and Exercise Support, Operational Support Office, 
        National Reconnaissance Office (NRO), Washington, DC.
        <bullet> July 1994-May 1996, Lieutenant Colonel, USMC, 11th 
        Marine Regiment, Camp Pendleton, CA, Operations Officer, 11th 
        Marine Regiment Commanding Officer, 5th Battalion, 11th Marines 
        Executive Officer, 11th Marine Regiment.
        <bullet> July 1996-April 1998, Lieutenant Colonel and Colonel, 
        USMC, Director, Strategic Initiatives Group, Plans, Policies, 
        and Operations, Headquarters, Marine Corps, Washington, DC.
        <bullet> May 1998-Jan. 1999, Colonel, USMC, Commanding Officer, 
        Camp Fuji, Japan.
        <bullet> Jan. 1999-May 2001, Colonel, USMC, Senior Aide and 
        Military Assistant to the Secretary of the Navy, Pentagon, 
        Washington, DC.
Since retirement in 2001:
        <bullet> June 2001-March 2002, Senior Associate, Toffler 
        Associates, Reston, VA/Washington DC.
        <bullet> April 2002-Dec. 2006, Senior Fellow, Center for 
        Strategic and Budgetary Assessments, Washington, DC.
        <bullet> Jan. 2007-present, Vice President for Strategic 
        Studies, Center for Strategic and Budgetary Assessments, 
        Washington, DC.
        <bullet> Jan. 2007-present, Adjunct Professor, The George 
        Washington University, Washington DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Career officer, U.S. Marine Corps, 1974-2001.
    As member of Toffler Associates, provided consulting services to 
the Air Force Air Combat Command and the Department of the Navy.
    As a member of the Center for Strategic and Budgetary Assessments, 
provided analytical support to the Office of the Secretary of Defense, 
the Departments of the Army, Navy, and Air Force, U.S. Joint Forces 
Command.
    Member, President-elect Obama's DOD Transition Team, Nov.-Dec. 
2008.
    Member, President-elect Obama's DOD Transition Team:

        <bullet> Team Lead, Navy and Marine Corps Programs
        <bullet> Member of Acquisition, Policy, and QDR Teams

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Vice President for Strategic Studies, Center for Strategic and 
Budgetary Assessments, Washington, DC.
    Adjunct Professor, The George Washington University, Washington DC.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See Question 11 above. In addition, I hold the following 
memberships:

------------------------------------------------------------------------
                                   Office held
           Organization              (if any)             Dates
------------------------------------------------------------------------
International Institute for              None              1974-present
 Strategic Studies...............
U.S. Naval Institute.............        None              1974-present
Marine Corps Association.........        None              1974-present
Military Officer Association of          None              1974-present
 America.........................
Navy League of the United States.        None              1974-present
American Association of Retired          None              1974-present
 Persons (AARP)..................
Services Employees Int'l Union           None              1974-present
 (SEIU) Local 500................
------------------------------------------------------------------------


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Assisted Richard Danzig and the Obama Defense Team during the 2008 
Presidential campaign (point papers, critiques, etc.).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $1,000, Obama for America, Feb. 16, 2008.
    $1,300, Obama for America, July 8, 2008.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Presidential Classroom for Young Americans, 1970.
    NROTC Scholarship, University of Illinois, 1970.
    Honor Graduate, Marine Corps Officer Candidates School, Quantico, 
VA, 1973.
    Distinguished Military Graduate, University of Illinois NROTC 
program, 1974.
    Honor Graduate, The Basic School, U.S. Marine Corps, Quantico, VA, 
1975.
    Honor Graduate, U.S. Army Field Artillery School, Fort Sill, OK, 
1975.
    Honor Graduate, Amphibious Warfare School, U.S. Marine Corps, 
Quantico, VA, 1981.
    Distinguished Speaker Award, U.S. Marine Corps Amphibious Warfare 
School, 1981.
    1st Marine Brigade Nominee for the annual U.S. Marine Corps 
Leftwich Award, which recognizes the best small unit leader in the 
Marine Corps, 1983.
    Graduate (with Distinction), U.S. Naval Postgraduate School, 1990.
    Astronaut Michael K. Smith Award for Outstanding Thesis, U.S. Naval 
Postgraduate School, 1990.
    Marine Corps Fellow, The John's Hopkins University School of 
Advanced International Studies, 1993-1994.
    Inducted into the Ancient Order of St. Barbara for Conspicuous 
Service to Marine Field Artillery, 1995.
    Marine Corps Attendee, MIT Seminar XXI: Foreign Politics, 
International Relations, and the National Interest, 1997.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    The Challenge of Maritime Transformation: Is Bigger Better 
(Washington, DC: Center for Strategic and Budgetary Assessments, 2002).
    Meeting the Anti-Access and Area-Denial Challenge, with Andrew 
Krepinevich and Barry Watts (Washington, DC: Center for Strategic and 
Budgetary Assessments, 2003).
    Naval Transformation and the Littoral Combat Ship (Washington, DC: 
Center for Strategic and Budgetary Assessments, 2004).
    ``Small Combat Ships and the Future of the Navy,'' Issues in 
Science and Technology,'' fall 2004.
    To Take and Keep the Lead: A Naval Fleet Platform Architecture for 
Enduring Maritime Supremacy (Washington, DC: Center for Strategic and 
Budgetary Assessments, 2005).
    Thinking About Seabasing: All Ahead, Slow (Washington, DC: Center 
for Strategic and Budgetary Assessments, 2006).
    `` `Economics' and Established Maritime Powers: Implications of the 
New Maritime Strategy,'' William B. Ruger Chair Workshop Report No. 2, 
U.S. Naval War College, 2006.
    ``On Seabasing,'' Reposturing the Force: U.S. Overseas Presence in 
the 21st Century (Newport, RI: U.S. Naval War College Newport Paper 
February 26, 2006).
    Know When to Hold 'Em, Know When to Fold 'Em: A New Transformation 
Plan for the Navy's Surface Battle Line (Washington, DC: Center for 
Strategic and Budgetary Assessments, 2007).
    ``Numbers and Capabilities: Building a Navy for the 21st Century,'' 
in Of Men and Material: the Crisis in Military Resources, Gary J. 
Schmidt and Thomas Donnelly, ed, (Washington DC: the AEI Press, 2007).
    A New U.S. Global Defense Posture for the Second Transoceanic Era, 
with Andrew Krepinevich (Washington, DC: Center for Strategic and 
Budgetary Assessments, 2007).
    ``The Global Era of National Policy and the Pan-Oceanic National 
Fleet,'' William B. Ruger Chair Workshop Report No. 3, U.S. Naval War 
College, 2007.
    Range, Endurance, Stealth, and Networking: The Case for a Carrier-
Based Unmanned Air Combat System, with Thomas P. Ehrhard, Ph.D 
(Washington, DC: Center for Strategic and Budgetary Assessments, 2008).
    ``A Cooperative Strategic for 21st Century Seapower: an 
Assessment,'' CSBA Backgrounder, with Jan van Tol, March 26, 2008.
    ``The Global Era of National Policy and the Pan-Oceanic National 
Fleet,'' Orbis, fall 2008.
    The Challenges to U.S. National Security, with Andrew Krepinevich 
and Robert Martinage, Washington, DC: Center for Strategic and 
Budgetary Assessments, 2008).
    The U.S. Navy: Charting a Course for Tomorrow's Fleet (Washington, 
DC: Center for Strategic and Budgetary Assessments, 2009.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    ``DDX,'' Testimony before the House Armed Services Committee 
Projection Forces Subcommittee Hearing on DD(X), July 19, 2005.
    ``The 313-Ship Fleet and Navy's 30-Year Shipbuilding Plan,'' 
Testimony before the House Armed Services Committee Projection Forces 
Subcommittee Hearing on the Affordability of the Navy's 313-Ship Navy 
and the Executability of the 30-Year Shipbuilding Plan, March 30, 2006.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Robert O. Work.
    This 27th day of April, 2009.

    [The nomination of Robert O. Work was reported to the 
Senate by Chairman Levin on May 14, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 18, 2009.]
                              ----------                              

    [Prepared questions submitted to Elizabeth Lee King by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this time I do not see a need to modify any Goldwater-
Nichols Act provisions.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If Congress should pursue adaptations to this construct or 
if the Department proposes changes, I would work closely with this 
committee and Congress to provide witnesses, briefings, and the 
necessary information so Congress can make informed judgments on policy 
alternative.
                                 duties
    Question. Section 138 of title 10, U.S.C., and DOD Directive 
5142.01, provide that the principal duty of the Assistant Secretary of 
Defense for Legislative Affairs shall be the overall supervision of 
legislative affairs of the Department of Defense (DOD). Additionally, 
the Assistant Secretary of Defense for Legislative Affairs is required 
to provide advice and assistance concerning congressional aspects of 
DOD policies, plans, and programs; to coordinate actions relating to 
congressional consideration of the DOD legislative program; and to 
coordinate the completion of responses to congressional inquiries.
    Question. If confirmed as the Assistant Secretary of Defense for 
Legislative Affairs, what would you view as your principal 
responsibilities to the Secretary of Defense and to Congress?
    Answer. If confirmed, one primary responsibility would be to be the 
principal voice for Congress in the DOD and to ensure that their 
concerns, actions, requests, and initiatives are addressed properly and 
in a timely fashion. In addition, it would be my responsibility to keep 
the Secretary informed of these congressional actions, requests, 
concerns, and initiatives.
    Question. Assuming you are confirmed, what other duties do you 
expect that Secretary Gates will prescribe for you?
    Answer. If confirmed, I expect Secretary Gates to assign me the 
responsibility of ensuring that the Department's liaison with Congress 
is effective, responsive, user and customer friendly, and to ensure the 
Department's goals and priorities are properly articulated.
    Question. What experience do you have that would qualify you to 
perform the duties of the Assistant Secretary of Defense for 
Legislative Affairs?
    Answer. Since March 1997, I have been the counsel and senior policy 
advisor for defense, foreign affairs and veterans for Senator Jack 
Reed, a senior member of the Armed Services Committee and member of the 
Appropriations Committee. In that position, I have worked extensively 
with the staff members of the two committees on the annual 
authorization and appropriations bills. I have also worked with the 
committee staff and Leadership staff on several legislative 
initiatives, including the Levin-Reed legislation on the U.S. mission 
in Iraq, and legislation increasing the end strength of the Army. I 
also learned about the relationships between a Member of Congress and 
the military installations in their States. Also, as a member of 
Senator Reed's staff, I have traveled with him and other Senators to 
areas where U.S. troops have been deployed, including Iraq, 
Afghanistan, Pakistan, Korea, Japan, Colombia, and Bosnia.
    From January 1996 to March 1997, I was legislative director for 
Congressman Marty Meehan, a member of the House Armed Services 
Committee. I was his principal staffer for this committee and learned 
the House process and worked with several members of the committee and 
committee staff.
    I was also a counsel for the 1995 Defense Base Closure and 
Realignment Commission. In that capacity, I visited numerous military 
installations and gained indepth knowledge of naval shipbuilding 
capacity, depots, and air stations.
    I have a law degree from Georgetown University and a BA from the 
University of Pennsylvania.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. If confirmed, I will function as the principal assistant to 
the Secretary on congressional matters. Under the Secretary's 
direction, I will be responsible for the coordination of the DOD 
legislative program, participation of departmental witnesses in 
congressional hearings, responses to congressional inquiries, DOD 
support of congressional travel, and I will be the Secretary's chief 
liaison with Congress.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would have a similar relationship with the 
Deputy Secretary of Defense.
    Question. The Under Secretaries and Assistant Secretaries of 
Defense.
    Answer. If confirmed, my relationship with the Under Secretaries of 
Defense and the Assistant Secretaries will be to serve as their 
principal advisor regarding legislative liaison and communications with 
Congress.
    Question. The General Counsel of the DOD.
    Answer. If confirmed, I would work closely with the General Counsel 
to ensure responsiveness in matters of congressional interest and to 
assist Office of the General Counsel coordination on legislation under 
consideration within the Department. I would seek the views and 
recommendations of the General Counsel on legal issues.
    Question. The Inspector General (IG) of the DOD.
    Answer. If confirmed I would exercise no authority or control over 
the DOD IG. I would be fully cooperative and supportive of the IG's 
mission.
    Question. The Secretaries of the Military Departments.
    Answer. If confirmed my relationship with the Military Department 
Secretaries would be principally through their Chiefs of Legislative 
Affairs. I would diligently work to ensure that the military department 
secretaries received the best assistance and congressional advice from 
my office by fostering an environment of trust and mutual support.
    Question. The Chiefs of Legislative Affairs of the Military 
Services.
    Answer. By DOD Directive, ultimate responsibility for supervision 
of legislative liaison activities throughout the Department is vested 
in the Assistant Secretary of Defense for Legislative Affairs. I would 
work closely with the legislative affairs offices of the Military 
Services to foster a climate of cooperation and support. If confirmed, 
I would routinely meet with the chiefs of legislative affairs of the 
Military Services to coordinate the Department's liaison mission, and 
ensure responsiveness to this committee and Congress.
    Question. The Legislative Assistant to the Chairman of the Joint 
Chiefs of Staff.
    Answer. If confirmed, I would routinely meet with the legislative 
assistant to the Chairman to ensure responsiveness to the committees of 
jurisdiction and Congress.
    Question. The Defense Agencies.
    Answer. If confirmed, I would provide overall guidance to the 
individual Defense Agencies with respect to the Department's 
legislative issues. I would meet regularly with the legislative 
assistants of the Defense Agencies to ensure they operate consistent 
with the Department's initiatives, the Secretary's position, and to 
ensure they are responsive to congressional inquiries.
    Question. Congressional liaison offices in the combatant commands 
and other entities throughout the DOD.
    Answer. If confirmed, I would routinely meet with the legislative 
assistants to the combatant commands as well as the other DOD entities 
to ensure responsiveness to this committee and Congress.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
confronting the Assistant Secretary of Defense for Legislative Affairs?
    Answer. The most significant challenge for the Assistant Secretary 
of Defense for Legislative Affairs is communication. I would work to 
ensure that vital information is provided to Congress in a timely and 
useful manner. If confirmed I would work to ensure Congress should not 
be in a position of reading or hearing about important issues in the 
media. The second challenge is providing timely, valuable advice to the 
Secretary, Deputy Secretary, and the key principals about congressional 
issues, concerns, or requests.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I would work diligently to ensure that the 
legislative affairs function in the Department is properly fulfilling 
its mission. I would review the organization and procedures of the 
office to ensure they are best able to meet the title 10 
responsibilities extended to this position. I would advocate 
organizational and/or procedural changes to the Secretary and Deputy 
Secretary where or if required.
                      legislative liaison offices
    Question. Within the Office of the Secretary of Defense, the 
Defense Agencies, and the combatant commands, there are various offices 
which have their own congressional liaison personnel.
    If confirmed, what steps, if any, would you take to coordinate the 
activities of the various congressional liaison offices and ensure that 
information provided to Congress is accurate, reliable, and represents 
the views of the Department?
    Answer. If confirmed, I will capitalize on my position within the 
Department to foster an environment that promotes rapid communication. 
Furthermore, I will ensure that the Department as a whole has an 
inclusive congressional engagement strategy that promotes a unified, 
accurate, reliable, and representative voice.
               liaison with the appropriations committee
    Question. Legislative liaison with the Appropriations Committees is 
primarily carried out through the Office of the Under Secretary of 
Defense, Comptroller, not through the Office of the Assistant Secretary 
of Defense for Legislative Affairs.
    Do you believe that this arrangement allows you to fulfill your 
responsibilities under section 138 of title 10, U.S.C.?
    Answer. If confirmed, I would have a cooperative relationship with 
both the Under Secretary of Defense (Comptroller) and the 
Appropriations Committees. I would coordinate closely with the 
Comptroller's office on all matters and issues of interest to the 
Congress and would include Comptroller staff in my daily staff 
meetings. I believe this arrangement would allow me to carry out the 
responsibilities under section 138 of title 10, U.S.C.
                     untimely legislative proposals
    Question. Late submission of legislative proposals by DOD to 
Congress for consideration as part of the annual National Defense 
Authorization Act has been a chronic problem. Legislative initiatives, 
which require substantial review and in many cases, testimony and 
discussion at annual posture hearings, are routinely forwarded to 
Congress too late for appropriate action.
    If confirmed, what actions would you take to improve the 
Department's performance in providing timely legislative initiatives to 
Congress?
    Answer. If confirmed. I would make more timely submissions of 
legislative proposals to Congress a priority. I would immediately 
address the timeline for submission of legislative proposals with the 
General Counsel and the Office of Legislative Counsel where this 
function is managed. I would also address this matter with the Office 
of Management and Budget.
        evaluation of legislative proposals and funding requests
    Question. Every year, dozens of legislative proposals are referred 
to the Armed Services Committee for consideration. In addition, the 
committee receives hundreds of requests from Members to fund specific 
programs, projects, and activities. The committee relies on the 
Department to provide timely evaluations of these legislative proposals 
and funding requests so that we can give full consideration to the 
Department's views.
    If confirmed, will you ensure that the Department makes every 
reasonable effort to provide the committee with timely evaluations of 
legislative proposals and funding requests?
    Answer. Yes.
    Question. How do you anticipate that you will work with the 
military departments and agencies to ensure that these evaluations are 
prepared and submitted in a timely manner?
    Answer. If confirmed, I will work with the military departments and 
agencies to ensure that all anticipate the requirement for the timely 
turnaround of the evaluations and that they make every effort to 
provide sufficient personnel and resources for their prepartation.
 timely written statements and responses to questions and information 
                             for the record
    Question. Under DOD Directive 5142.01, the Assistant Secretary of 
Defense for Legislative Affairs is responsible for the coordination and 
oversight of submission of responses to congressional inquiries and 
reports and for the provision of information at congressional hearings. 
The failure on the part of departmental witnesses to submit written 
statements when required and to timely respond to questions for the 
record (QFRs) by Senators and requests for information for the record 
(IFRs) following hearings is a problem requiring the attention of the 
Assistant Secretary of Defense for Legislative Affairs.
    If confirmed, what actions would you take to improve the 
Department's performance in providing timely written statements and 
answers to QFRs and IFRs?
    Answer. If confirmed, I would work to ensure that a system of 
timelines is in place for proper response to Congress' request for 
information and for Congress' desire to have all legislative proposals 
and statements submitted to both Houses in a complete and timely 
manner.
                   access to documents and materials
    Question. In the course of oversight activities on behalf of the 
Armed Services Committee staff frequently requests and receives 
detailed briefings and materials on ongoing programs and activities of 
the Department. The information requested sometimes includes 
proprietary, source selection, or other sensitive categories of 
information. From time to time, various officials of the military 
departments and defense agencies have requested that the committee 
provide a letter signed by the chairman, or a certification signed by 
the staff member, as a precondition to providing such information. 
These conditions are inconsistent with past practice and the historic 
relationship between the Department and the committee.
    What is your view of the circumstances, if any, in which it would 
be appropriate for the Department to insist on a letter from the 
chairman before providing documents and information requested by the 
committee staff to carry out the committee's oversight responsibility?
    Answer. Requiring written requests from the chairman is appropriate 
where FOIA exempt materials or other materials that may have privacy 
concerns are an issue. Though FOIA and its exemptions do not apply to 
requests from Congress, only the chairman of a congressional committee 
may make a request on behalf of Congress. Though privacy concerns also 
do not apply to requests from Congress, the Department has certain 
requirements that they must follow to protect such material and a 
request from the chairman in the record assists the Department in 
keeping their records complete.
    Question. What is your view of efforts to change the Department's 
historic practice and require a certification by committee staff before 
providing documents and information requested by the staff to carry out 
the committee's oversight responsibility?
    Answer. I look forward to reviewing these processes if confirmed, 
and working through related issues with Congress.
        providing information to congressional support agencies
    Question. Congress relies on its three support agencies--the 
Government Accountability Office (GAO), the Congressional Budget Office 
(CBO), and the Congressional Research Service (CRS)--for information 
and analysis. On defense matters, there have been instances where the 
Department has not been as responsive and forthcoming in timely 
providing relevant information to these support agencies as the 
committee would expect.
    If confirmed, what steps would you take to ensure that the 
Department responds fully to GAO, CBO, and CRS and would you be 
committed to ensuring that the Department cooperates with these 
agencies in fulfilling their responsibilities?
    Answer. If confirmed, I will commit myself to ensuring that all 
congressional inquiries, whether they originate from an oversight 
committee or a supporting agency, are responded to in a timely and 
effective manner. Furthermore, I will use my position of leadership to 
assist the Services and other defense entities in doing the same.
                      legislative fellows program
    Question. In Senate Report 110-335 accompanying S. 3001, the 
National Defense Authorization Act for Fiscal Year 2009, the committee 
called for a critical review by May 1, 2009, of the Department's 
Legislative Fellows Program in order to ensure that the program is 
organized, resourced, managed, and controlled consistent with the 
career progression needs of the officers who are assigned and the 
manpower requirements of their respective Services.
    What is the status of the required review of the Legislative 
Fellows Program?
    Answer. It is my understanding that the review has been completed, 
and the report is being finalized for submission.
    Question. What is your view of the optimal number of legislative 
fellows and what do you consider the appropriate role and 
responsibilities of a legislative fellow within a Senator or 
Congressman's office should be?
    Answer. The current number, 100 per year, seems to be about right. 
I am informed this number is divided among the Services and Defense 
Agencies. The Legislative Fellow Program should be a unique educational 
experience, and as such, fellows should be given real opportunities to 
learn how the legislative branch functions and not be used for 
administrative office roles. I will therefore work to ensure that the 
fellows program is meeting the needs of Congress, the Services, and the 
Defense Agencies.
    Question. Have the Services fulfilled their responsibility to 
ensure that legislative fellows immediately serve in billets that will 
utilize the training and experience they have obtained as legislative 
fellows?
    Answer. It is my understanding that the Services are in compliance 
with DOD policy which states there should be an immediate follow-on 
utilization tour following the fellowship. However, in those few cases 
where operational or professional development needs preclude an 
immediate follow-on utilization assignment, the Military Department may 
delay, or ultimately waive, this requirement.
                              nominations
    Question. If confirmed, what role would you, as Assistant Secretary 
of Defense for Legislative Affairs, expect to play in the military and 
civilian nomination processes?
    Answer. If confirmed, I would expect to play a primary role in 
preparing civilian nominations for confirmation, and a primary support 
role to the Chairman of the Joint Chiefs and the Services in preparing 
military nominations for confirmation. In addition, my staff and I will 
track nominations closely and ensure the committee is made aware of all 
relevant information.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Legislative Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
              Question Submitted by Senator Susan Collins
                      base realignment and closure
    1. Senator Collins. Ms. King, Senator Reed mentioned your 
involvement in an earlier round of base realignment and closure (BRAC) 
decisions. Regrettably, the Brunswick Naval Air Station in Maine will 
be closing over the next 2 years due to the most recent BRAC decisions. 
This is a major blow at the worst possible time economically. At times, 
it has been difficult for the redevelopment commission to get prompt 
information and cooperative answers from the Pentagon. Will you pledge 
to help communities in Maine and elsewhere coping with base closures 
get the information and assistance they need from the Department of 
Defense?
    Ms. King. Should I be confirmed, I give you my personal assurance 
all requests for information from the Brunswick Naval Air Station 
community and all other communities facing BRAC, can expect a timely 
response. When notified of these types of requests, I pledge to work 
with the appropriate Department stakeholders in responding to them 
quickly and thoroughly. Further, I will strive to keep congressional 
members and their staffs informed of the way ahead on these and other 
important actions involving the communities which have served our 
Nation proudly for so many years.
                                 ______
                                 
    [The nomination reference of Elizabeth Lee King follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Elizabeth Lee King, of the District of Columbia, to be an Assistant 
Secretary of Defense, vice Robert L. Wilkie, resigned.
                                 ______
                                 
    [The biographical sketch of Elizabeth Lee King, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Elizabeth L. King
    Elizabeth King is the Counsel and Senior Policy Advisor for 
Defense, Foreign Affairs, and Veterans for Senator Jack Reed (D-RI). 
For the past 12 years, Ms. King has been Senator Reed's primary liaison 
to the Senate Armed Services Committee and the Senate Appropriations 
Committee in the areas of defense, military construction, veterans, and 
foreign operations. Ms. King has traveled with Senator Reed and other 
Members of Congress to Iraq, Afghanistan, Pakistan, China, Korea, 
Colombia, and East Timor.
    Before joining the staff of Senator Reed, Ms. King was the 
Legislative Director for Representative Marty Meehan (D-MA), a Member 
of the House Armed Services Committee. She was also a counsel on the 
1995 Defense Base Closing and Realignment Commission.
    Ms. King was born and raised in Chicago, IL. She received a 
Bachelor of Arts, cum laude, in American history and international 
relations from the University of Pennsylvania in 1987 and a Juris 
Doctor from Georgetown University Law Center in 1993. She is a member 
of the International Institute of Strategic Studies.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Elizabeth L. 
King in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Elizabeth Lee King.

    2. Position to which nominated:
    Assistant Secretary of Defense for Legislative Affairs.

    3. Date of nomination:
    April 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 18, 1965; Evergreen Park, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. Ignatius College Prep, 1076 Roosevelt Road, Chicago, IL; 
Attended 1979-1983; received high school diploma, May 1983.
    University of Pennsylvania, Philadelphia, PA; Attended 1983-1987, 
received B.A. May 1987.
    Georgetown University Law School, 600 New Jersey Ave., NW, 
Washington, DC; Attended 1990-1993, received J.D. May 1993.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Counsel and Senior Policy Advisor; U.S. Senator Jack Reed, 728 Hart 
Senate Office Building, Washington, DC; March 1997-present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Active member, DC Bar.
    Member, International Institute for Strategic Studies.
    Member, University of Pennsylvania Alumni Club of DC.
    Member, University of Pennsylvania Band Alumni Club.
    Member, Georgetown University Alumni Association..

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Daniel Hynes, Illinois State Comptroller, $100, June 2008.
    Colleen Callahan, Candidate for Congress in Illinois, $100, 
September 2008.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Member, International Institute for Strategic Studies.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Elizabeth Lee King.
    This 27th day of April, 2009.

    [The nomination of Elizabeth L. King was reported to the 
Senate by Chairman Levin on May 6, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 7, 2009.]
                              ----------                              

    [Prepared questions submitted to Donald M. Remy by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act changed Department of Defense 
operations profoundly and positively. Although I believe that the 
framework established by Goldwater-Nichols has significantly improved 
interservice and joint relationships and promoted the effective 
execution of responsibilities, the Department, working with the 
Congress, should continually assess the law in light of improving 
capabilities, evolving threats, and changing organizational dynamics. 
Although I am currently unaware of any reason to amend Goldwater-
Nichols, if confirmed, I hope to have an opportunity to assess whether 
the challenges posed by today's security environment require amendments 
to the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation is now more than 20 years old 
and has served our Nation well. If confirmed, I believe it may be 
appropriate to consider with Congress whether the act should be 
revised, but at this time I have no specific proposals to amend any 
provisions of the act.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Army?
    Answer. Title 10, U.S.C., section 3019, provides that the General 
Counsel of the Army shall perform such functions as the Secretary of 
the Army may prescribe. The Secretary has done so through general 
orders, regulations, and memoranda. The General Counsel provides legal 
advice to the Secretary of the Army, the Under Secretary, the Assistant 
Secretaries, and other offices within the Army Secretariat. As the 
chief legal officer of the Department of the Army, the General Counsel 
determines the controlling legal positions of the Department of the 
Army. The General Counsel's responsibilities extend to any matter of 
law and to other matters as directed by the Secretary. I understand 
that a few examples of specific responsibilities currently assigned to 
the General Counsel include providing professional guidance to the 
Army's legal community, overseeing matters in which the Army is 
involved in litigation, serving as the Designated Agency Ethics 
Official, exercising the Secretary's oversight of intelligence and 
other sensitive activities and investigations, providing legal advice 
to the Army Acquisition Executive, and taking final action on certain 
claims filed against the Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The diversity and complexity of legal issues confronting 
the Department of the Army are such that no one lawyer can have in-
depth experience in all of them. However, the General Counsel must 
possess absolute integrity, mature judgment, sound legal and analytical 
skills, and strong interpersonal and leadership abilities. I believe 
that my background and diverse legal experiences in both the public and 
private sectors have prepared me to meet the challenges of this office.
    I received my undergraduate degree with honors from LSU in 1988, 
where I was a Distinguished Military Graduate and commissioned second 
lieutenant in the U.S. Army. Thereafter, I was awarded an educational 
delay and graduated cum laude and third in my class from Howard 
University School of Law in 1991, having served as executive articles 
editor of law review. Immediately upon graduation from law school, I 
was selected into the Honors Program in the Army General Counsel's 
Office where I served as a Captain and Assistant to the General Counsel 
focusing on domestic and international research, development, and 
acquisition. I clerked for the Honorable Nathaniel R. Jones of the U.S. 
Court of Appeals for the Sixth Circuit. I have been in private practice 
at two law firms, presently a litigation partner at a prominent global 
firm. I served in a variety of significant capacities, legal and 
business, at a major U.S. corporation. At the U.S. Department of 
Justice, I served as a Senior Counsel for Policy and Deputy Assistant 
Attorney General for Torts and Federal Programs in the Civil Division.
    I believe that my extensive experience in the Army, at the Justice 
Department, in corporate America, and in private practice all have 
helped prepare me for the extraordinary challenge of serving as General 
Counsel of the Department of the Army and overseeing the delivery of 
legal services in the Army during a period of wartime and of continued 
Army transformation. Indeed, my familiarity with the Department of 
Defense and with broader governmental legal practice has well equipped 
me to address this important responsibility.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Army?
    Answer. Based on my 18 years of the practice of law, most of which 
has been in public service with all three branches of government, I 
believe I have the requisite legal training and abilities and 
leadership skills to serve as the Army General Counsel. If I am 
confirmed, I will work to broaden my expertise and further my 
understanding and knowledge of the Army, its people and organization, 
the resources necessary to sustain and transform it, and the challenges 
it faces.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. Although the Secretary of the Army has not discussed with 
me the duties and functions he will expect that I perform, I anticipate 
that he will rely on me to provide accurate and timely legal advice to 
help ensure that the Army complies with both the letter and spirit of 
the law. Presumably, the current enumeration of General Counsel 
responsibilities set forth in the general order prescribing the duties 
of each principal official of the Headquarters, Department of the Army, 
will generally remain in effect. Apart from such formally prescribed 
duties, I believe the Secretary of the Army would expect me to continue 
a collegial and professional relationship with the General Counsels of 
the Department of Defense, the other military departments, and the 
Defense Agencies and the legal staffs of other Federal agencies. I 
anticipate that the Secretary of the Army will expect me to continue 
the effective and professional working relationship that exists between 
the Office of the General Counsel and The Judge Advocate General and 
his staff. Finally, I anticipate that the Secretary of the Army will 
expect me to manage the General Counsel's office efficiently and 
effectively, and to ensure that the Army legal community is adequately 
resourced to perform its important mission.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. The General Counsel of the Department of Defense is the 
Chief Legal Officer and final legal authority for the Department of 
Defense. Although there is no direct reporting relationship to the 
General Counsel of the Department of Defense, Jeh Johnson has made 
clear in his testimony before this committee and his actions in the 
Department, that he intends to work closely with the Service General 
Counsels. If confirmed, I anticipate having a close and professional 
relationship with Mr. Johnson, characterized by continuing 
consultation, communication, and cooperation on matters of mutual 
interest, in furtherance of the best interests of the Department of 
Defense.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Army?
    Answer. In my opinion, one major challenge will be to continually 
provide responsive, accurate legal advice regarding the broad array of 
complex issues likely to arise in connection with the Army's role in 
support of Joint Operations while simultaneously adapting its aim 
toward a balanced Army for the 21st century. Although the current 
environment makes it difficult to anticipate specific legal questions, 
I expect to confront issues relating to operational matters, 
acquisition reform, privatization initiatives, military and civilian 
personnel policies, compliance with environmental laws, and oversight 
of Department of the Army intelligence activities. At this time, I am 
not aware of any problems in the current delivery of legal services. 
However, if confirmed, I will work hard to ensure that the Army legal 
community is adequately staffed and resourced to provide the 
responsive, accurate, and timely legal advice necessary to ensure 
success in all of the Army's endeavors.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will prioritize legal issues in the manner 
that best serves the Department of the Army. I will also ensure that 
the talented and dedicated lawyers comprising the Army legal community 
continue to provide timely value added legal advice of the highest 
possible quality in response to the Department of the Army's recurring 
legal responsibilities and the numerous issues that the Army confronts 
every day. I will endeavor to keep Army lawyers involved at all stages 
of the decisionmaking process, because I believe that preventive law, 
practiced early in the formulation of departmental policies, will 
undoubtedly facilitate the Department's adaptation to the changing 
operational environment. If confirmed, I will work diligently to 
adequately resource and expertly staff the Army legal community, in 
order to guarantee decisionmakers at all levels access to the best 
possible legal advice.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Army?
    Answer. If confirmed, I will focus foremost on the issues that 
directly impact soldiers, their families, readiness, and the support of 
military operations. I anticipate that the other legal issues of 
highest priority will arise from the Army's operational readiness to 
meet the challenges posed by today's dynamic security environment while 
simultaneously planning and executing broad strategic initiatives. I 
will ensure that expert advice is provided to those engaged in the 
Army's efforts to improve the acquisition process and eliminate fraud, 
waste, and abuse. I will also ensure that the Army legal community 
continues to provide timely legal advice of the highest possible 
quality, executing the Department's recurring legal responsibilities 
and anticipating and responding to the numerous issues the Army 
confronts every day.
              relationship with the judge advocate general
    Question. In carrying out your duties, how will you work with the 
Judge Advocate General of the Army?
    Answer. As an Assistant to the General Counsel of the Army from 
1991-1995 I believe that I worked in a collegial and collaborative 
fashion with the Judge Advocate General's Corps to deliver effective 
legal advice to the Army leadership. Indeed, I believe that close, 
professional cooperation between the civilian and uniformed members of 
the Army's legal community is absolutely essential to the effective 
delivery of legal services to the Department of the Army. If confirmed, 
I will seek to ensure that the Office of the General Counsel and The 
Judge Advocate General and his staff, as well as The Judge Advocate 
General and I, continue to work together to deliver the best possible 
legal services to the Department of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and The Judge Advocate 
General?
    Answer. The Army General Counsel is the chief legal officer of the 
Department of the Army. The Office of the Army General Counsel is a 
component of the Army Secretariat, and provides legal advice to the 
Secretary of the Army and other Secretariat officials on all legal 
matters. The Judge Advocate General is the legal adviser of the Chief 
of Staff of the Army, members of the Army Staff, and members of the 
Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal adviser to the 
Secretary of the Army. The law expressly prohibits interference with 
the ability of The Judge Advocate General to give independent legal 
advice to the Secretary of the Army. Even in the absence of that 
statutory requirement, I would always welcome the expression of 
independent views about any legal matter under consideration. The Judge 
Advocate General also directs the members of the Judge Advocate 
General's Corps in the performance of their duties. By law, he is 
primarily responsible for providing legal advice and services regarding 
the Uniform Code of Military Justice and the administration of military 
discipline. The Office of the Army General Counsel and the Office of 
The Judge Advocate General have developed and maintain a close and 
effective working relationship in performing their respective 
responsibilities. If confirmed, I will work to continue that 
synergistic partnership in providing legal services to the Army.
    Question. How will you ensure that legal opinions of your office 
will be available to Army attorneys, including Judge Advocates?
    Answer. It is my understanding that the majority of legal opinions 
provided to Army attorneys and judge advocates are issued by the Office 
of The Judge Advocate General, and that many of these opinions are 
coordinated with the Office of the Army General Counsel. The close, 
professional cooperation between the civilian and uniformed members of 
the Army's legal community is absolutely essential to ensure legal 
opinions issued by the Office of the Army General Counsel will be 
available to all Army attorneys and Judge Advocates and vice versa. If 
confirmed, I will seek to ensure that the Office of the General Counsel 
appropriately makes available any legal opinions that it issues.
    Question. In response to attempts within the Department of Defense 
to subordinate legal functions and authorities of the Judge Advocates 
General to the General Counsels of the Department of Defense and the 
Military Services, Congress enacted legislation prohibiting any officer 
or employee of the Department of Defense from interfering with the 
ability of the Judge Advocates General of the Military Services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs. Congress also required a study and review by outside 
experts of the relationships between the legal elements of each of the 
military departments of each of the military departments.
    What is your view of the need for The Judge Advocate General of the 
Army to provide independent legal advice to the Secretary of the Army 
and the Chief of Staff of the Army?
    Answer. The Judge Advocate General's statutory authority to provide 
independent legal advice has repeatedly been recognized as essential to 
the effective delivery of legal services. Uniformed attorneys bring 
another perspective and can provide insight and advice shaped by years 
of service throughout the Army. In today's environment, our senior 
leaders must have independent, honest advice from their lawyers. Recent 
history has clearly demonstrated why that independent advice is 
critical.
    Question. What is your view of the responsibility of Army Judge 
Advocates to provide independent legal advice to military commanders?
    Answer. Army Judge Advocates in the field have a critical 
responsibility to provide independent legal advice to commanders given 
the missions they perform. Army commanders deserve the best legal 
advice available, and that is in part made possible when the Judge 
Advocates know they can operate independently with appropriate advice 
and guidance from supervising attorneys in their technical chain.
    Question. If confirmed, would you propose any changes to the 
current relationships between the Army's uniformed Judge Advocates and 
General Counsel?
    Answer. Based upon my knowledge and understanding to date, I 
believe that uniformed Army Judge Advocates and the Army General 
Counsel have an excellent working relationship. If confirmed, I will 
continue to foster this professional and collaborative relationship to 
ensure the effective delivery of legal services to the Department of 
the Army. Yet, as all relationships are dynamic, I will continually 
assess whether any changes or improvements are needed.
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to The Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view your responsibilities in the performance of 
military justice matters with regard to the Judge Advocate General of 
the Army?
    Answer. The Judge Advocate General has the primary responsibility 
for providing legal advice and services regarding the Uniform Code of 
Military Justice and the administration of military discipline. Article 
6 of the Uniform Code of Military Justice requires The Judge Advocate 
General or senior members of his staff to make ``frequent inspections 
in the field'' in furtherance of his responsibility to supervise the 
administration of military justice. I will, if confirmed, consult with 
The Judge Advocate General on matters of mutual interest or concern 
relating to military justice, recognizing his statutory duties and 
special expertise in this area. I will also work with The Judge 
Advocate General in safeguarding the integrity of the military justice 
system.
                attorney recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality attorneys and provide sufficient opportunity for advancement?
    Answer. I understand that the Army continues to recruit and retain 
top quality military and civilian attorneys. Through an extensive 
professional development program, Army military and civilian attorneys 
are ready to perform the full spectrum of demanding positions. I recall 
that the Judge Advocate General's Legal Center and School is the 
cornerstone of the successful continuing education of these attorneys. 
If confirmed, I will continue to monitor and assess recruitment, 
retention, and advancement programs for our military and civilian 
attorneys.
    Question. In your view, does the Department of the Army have a 
sufficient number of attorneys to perform its missions?
    Answer. The Army's legal community has grown out of necessity in 
recent history, and may need to adjust because of new mission 
requirements. If confirmed, I will evaluate the adequacy of the numbers 
of attorneys in the Department of the Army to accomplish the Army's 
missions.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. I am not familiar with the full scope of the Army's 
programs for recruiting and retaining military and civilian attorneys, 
but if confirmed, with the Judge Advocate General I will look at this 
area very carefully and support initiatives that enhance the Army's 
ability to recruit and retain those critical skills that give it 
flexibility and ensure we have the right attorneys performing every 
mission.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in helping 
the Department of Defense and the Department of the Army address legal 
issues regarding detainees?
    Answer. Addressing the legal issues regarding detainees is of vital 
importance to the Department of Defense and the Nation as a whole. I 
understand that the Office of the General Counsel and the Office of The 
Judge Advocate General have representatives on a DOD General Counsel 
subgroup convened pursuant to the President's Executive Orders. If 
confirmed, I will work closely with the DOD General Counsel and this 
subgroup in executing the President's directives. Additionally, in 
coordination with The Judge Advocate General, I will provide advice to 
the Secretary of the Army in his role as the Department of Defense 
Executive Agent for the administration of detainee operations policy, 
with particular focus on our obligation to treat all detainees 
humanely.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    In your view, is the foregoing prohibition in the best interest of 
the United States? Why or why not?
    Answer. Yes, I firmly believe that this prohibition is in the best 
interest of the United States. This prohibition is consistent with the 
longstanding military tradition of applying the humanitarian provisions 
of the Law of War to those individuals who, for whatever reason, are no 
longer actively participating in hostilities and find themselves in 
custody. Moreover, this prohibition is consistent with international 
standards to which the United States is a party. As President Obama 
recently noted, ``[a] democracy as resilient as ours must reject the 
false choice between our security and our ideals.'' Prohibiting the 
cruel, inhumane, or degrading treatment or punishment of individuals in 
our custody or under our physical control upholds our ideals and 
reinforces our moral authority around the world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. Although the phrase ``cruel, inhuman, or degrading 
treatment'' is, on its face, susceptible to broad interpretation, the 
proscriptions on such conduct contained in the Department's 
implementing directives, as well as the provisions of the Geneva 
Conventions that are embodied in those directives, make it clear to our 
soldiers what conduct is prohibited. If confirmed I will ensure the 
Army's implementation of this policy in doctrine, to include training 
manuals, is clearly understood.
    Question. What role do you believe the General Counsel of the Army 
should play in the interpretation of this standard?
    Answer. The appropriate role of the General Counsel is to provide 
advice to the Secretary of the Army and his staff on detention and 
interrogation policies that implement this standard. If confirmed, I 
will ensure Army implementation is consistent with the law, the intent 
of the administration, and the guidance issued by the Secretary of 
Defense.
    Question. What role do you believe the Judge Advocate General of 
the Army should play in the interpretation of this standard?
    Answer. The appropriate role of The Judge Advocate General is to 
provide advice to the Chief of Staff of the Army and the Army staff on 
detention and interrogation policies that implement this standard. The 
Judge Advocate General should also continue to train and supervise the 
Judge Advocates in the field, who are so instrumental in attaining and 
maintaining this standard.
    Question. If confirmed, will you take steps to ensure that all 
relevant Army directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. I will. I believe the requirements of section 1403 and 
Common Article 3 of the Geneva Conventions continue to be essential to 
maintaining a disciplined Army, bound by the Rule of Law.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. I do. These standards have been instrumental in restoring 
the confidence of the American people in the Army and will be 
important, in the future, in guiding our soldiers in contingency 
operations.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. These sections of the War Crimes Act were necessary to 
define the ``serious crimes,'' or ``grave breaches,'' of Common Article 
3 to the Geneva Conventions. Defining these felony-level offenses was 
important to complete international law obligations to define, with 
specificity, the grave breaches which must be prosecuted under the law 
of war. In addition, in order to complete the U.S. obligation to ``take 
all measures necessary for the suppression'' of all other violations of 
the law of war, other than grave breaches, I believe the Department 
must continue to hold soldiers accountable for violations of these 
standards. I understand that these obligations will continue to be 
enforced through appropriate directives, training, and oversight.
                     contractors on the battlefield
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. The extensive involvement of contractor employees in a 
broad array of activities--including security functions--has raised 
questions about the legal accountability of contractor employees for 
their actions.
    Do you believe that current Department of Defense and Department of 
the Army regulations appropriately define and limit the scope of 
security functions that may be performed by contractors in an area of 
combat operations?
    Answer. It is my current understanding that Department of Defense 
Instructions currently define the limit and scope of security functions 
that may be performed by contractors in an area of combat operations; 
however, I have been advised that this instruction is currently under 
review. Accordingly, it would be premature for me to offer an opinion 
at this time regarding whether current Department of Defense and 
Department of the Army regulations on the subject are adequate, and if 
confirmed I will support this review as appropriate.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. It would be premature for me to recommend any changes to 
Department of Defense or Department of the Army regulations until the 
review of Department of Defense Instruction 3020.41 is complete.
    Question. Do you believe that current Department of Defense and 
Department of the Army regulations appropriately define and limit the 
scope of contractor participation in the interrogation of detainees?
    Answer. I understand that the current Department of Defense and 
Department of the Army regulations define and, if implemented properly, 
limit the scope of contractor participation in the interrogation of 
detainees
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. I have no basis to propose any changes at this time. If 
confirmed, I will review the applicable Department of Defense and 
Department of the Army regulations to determine what, if any, changes 
may be needed.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons.''
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. There are many factual data points that may have an impact 
on determining whether the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations is an inherently 
governmental function. For example, I understand that support services 
that require substantial discretion or prudent judgment are inherently 
governmental, and that the likelihood that an individual will be 
required to resort to force, especially deadly force, and the degree to 
which an individual may be required to exercise force in public are 
important factors to consider in assessing whether a particular 
security mission is inherently governmental. Therefore, if I am 
confirmed, I intend to examine this issue in greater depth to ensure 
the Army's assessment regarding this issue is fully considered in the 
ongoing review of its policies.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. I understand that under Department of Defense policy the 
direction and control of intelligence interrogations--to include the 
approval, supervision, and oversight of interrogations, as well as the 
execution of those aspects of an interrogation that entail substantial 
discretion--are inherently governmental activities. However, an issue 
may arise to the extent that properly trained and cleared contractors 
may be used to conduct government approved interrogations if they are 
supervised and closely monitored throughout the interrogation process 
by properly trained DOD military or civilian personnel. In my view the 
conduct of interrogations is a dynamic activity that could create 
circumstances that might cause a contractor to exercise discretion that 
could significantly affect the life, liberty, or property of private 
persons. As a result, the Department should continue to assess the 
appropriateness of the contractors' role in an interrogation.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, I will provide advice to the Secretary of the 
Army and the appropriate Assistant Secretaries regarding the functions 
that contractors may legally perform on the battlefield, and I will 
assist them in implementing policies regarding the use of contractors 
that are consistent with applicable statutory and regulatory 
constraints.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I understand that MEJA was intended to address the 
jurisdictional gap in U.S. law regarding criminal sanctions, as applied 
to civilians employed by or accompanying the Armed Forces outside the 
United States, members of the Armed Forces, and former members of the 
Armed Forces, including their dependents. In my opinion, MEJA provides 
an effective means of exercising extraterritorial criminal jurisdiction 
over contractor employees in Iraq, Afghanistan, and other areas of 
combat operations who engage in conduct that would constitute a felony-
level Federal crime in the United States.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. I understand that legislation has been proposed in the past 
that would expand MEJA to cover individuals employed under a contract 
(or subcontract at any tier) awarded by any department or agency of the 
United States, where the work under such contract is carried out in an 
area, or in close proximity to an area (as designated by the Department 
of Defense), where the Armed Forces are conducting contingency 
operations. If confirmed, I will study this and assess whether this or 
any other change to MEJA may be appropriate.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. The General Counsel is responsible for the administration 
of Army contracts and the supervision of Army civilian employees 
potentially subject to prosecution under MEJA. If confirmed, I would 
play an active role in the development of any proposals to change MEJA. 
I would also coordinate closely with The Judge Advocate General in the 
development of any such proposals given the complementary and sometimes 
competing availability of jurisdiction under the Uniform Code of 
Military Justice (UCMJ).
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of military courts 
martial under the UCMJ to persons serving with or accompanying an armed 
force in the field during time of declared war or a contingency 
operation, such as our current operations in Iraq and Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. The UCMJ provides commanders the tools necessary to 
maintain good order and discipline and the morale, welfare and safety 
of all those under their jurisdiction during military operations. 
Because misconduct by contractors may undermine good order and 
discipline, Congress extended UCMJ jurisdiction over such individuals, 
and the Secretary of Defense, in turn, published guidance on the 
prudent exercise of such jurisdiction. This guidance ensures that the 
Department of Justice and the Department of Defense each play an 
appropriate role in resolving whether, and under which system, 
jurisdiction might be better exercised in each potential case.
    Question. What is your view of the procedures agreed upon by the 
Department of Defense and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ?
    Answer. I have not had an opportunity to review the procedures 
agreed upon by the Department of Defense and the Department of Justice 
to reconcile jurisdictional responsibilities under MEJA and the UCMJ. 
If confirmed, I will monitor cases in which MEJA and the UCMJ are 
employed in coordination with The Judge Advocate General to assess the 
effectiveness of the procedures and whether further refinements of 
these procedures are necessary.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. At present, I am not aware of any specific provisions in 
need of change
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of the Department of Defense and the Department of the Army 
regarding religious practices in the military?
    Answer. As a former soldier and attorney in the Army General 
Counsel's office and Civil Division of the Department of Justice, it 
always has been my understanding that the Army's policies support 
religious tolerance and respect. If confirmed, I would continue the 
Army's apparent commitment to upholding the Constitutional tenets of 
the ``free exercise'' and ``establishment'' clauses and review policies 
as necessary to assure continued compliance with the First Amendment.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I understand that, as they now stand, Army policies require 
chaplains to support all unit personnel, regardless of their beliefs. 
It is my view that these Army policies do accommodate free exercise of 
religion. If confirmed, I am willing to study this issue further to 
determine if changes in policy are necessary under the law.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. I understand that, during mandatory official functions, 
chaplains are not compelled to offer prayers that are inconsistent with 
their faith, but are expected to remain sensitive to the pluralistic 
Army and society they serve. In my opinion, these policies strike an 
appropriate balance given the diversity of religious views in the Army. 
If confirmed, I am willing to study this issue further to determine if 
changes in policy are necessary under the law.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. I understand that, for all officer promotions, including 
general officer promotions, the Office of the Army General Counsel, in 
coordination with the Office of The Judge Advocate General, reviews the 
following:

          a. Memoranda of Instruction that govern the conduct of 
        promotion selection boards and subsequent promotion selection 
        board reports.
          b. Adverse information that is not in an officer's official 
        military personnel file that may be presented to the promotion 
        selection board. I have been advised that this information is 
        reviewed to ensure it is accurate and comports with the 
        requirements of title 10 such that the information is 
        ``substantiated, relevant information that could reasonably 
        affect the deliberations of the selection board.''
          c. Adverse information related to general officers. In 
        general officer cases, the standard for adverse information 
        that must be presented to a promotion selection board is ``any 
        credible information of an adverse nature.'' I have been 
        advised that the Office of the Army General Counsel 
        participates in a detailed screening process in which a panel 
        of senior officials reviews all credible information related to 
        officers whose records will be reviewed by a promotion 
        selection board for promotion to a general officer grade. The 
        panel ensures that all adverse information is properly 
        identified for presentation to the promotion selection board.
          d. Adverse information that becomes available after a 
        promotion selection board makes its recommendations. I have 
        been advised that the Office of the Army General Counsel and 
        the Office of The Judge Advocate General coordinate in 
        providing legal advice to the Secretary of the Army so that he 
        may determine whether a promotion review board should be 
        convened to consider whether to continue to support the 
        promotion of the considered officer or take steps to remove the 
        officer from the promotion list.

    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. I understand that under title 10, the Secretary of the Army 
is responsible for the proper functioning of the Department of the 
Army's promotion selection process. Prior to approval by the Secretary 
of the Army, all Memoranda of Instructions for officer promotion 
selection boards are reviewed by the Office of the Army General 
Counsel, in coordination with the Office of The Judge Advocate General, 
to ensure the Secretary's instructions conform to statutes and 
accurately reflect his guidance regarding attributes necessary for 
service in the next grade. All reports of promotion selection boards 
are processed through the Office of the Army General Counsel prior to 
final action on the report by the Secretary. The Army General Counsel 
must satisfy himself or herself that the Army has met applicable 
statutory standards and that individual selection board reports conform 
to the law. The Army General Counsel must advise the Secretary of the 
Army of any case in which a selection board report fails to adhere to 
the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Army and the Office of the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), the General Counsel helps to 
ensure that Army promotion policies properly implement applicable laws 
and regulations and are fairly applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. It is my understanding that under current Department of the 
Army practice, the General Counsel's office reviews each selection 
board report, as well as departmental communications to the committee, 
the President, and the Secretary of Defense concerning nominations, to 
ensure that the reports and communications comply in form and substance 
with law and regulation. The General Counsel's office gives special 
attention to cases of nominees with substantiated or potentially 
adverse information, in order to ensure that such information is 
reported to the Senate Armed Services Committee in a timely, accurate, 
and comprehensible manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Manpower and Reserve 
Affairs), and other senior Department of the Army leaders to ensure 
that the Department of the Army's military personnel policies are 
formulated and applied uniformly, fairly, and in accordance with 
applicable laws and regulations. If I were to become aware of an 
individual case in which military personnel policies were not fairly 
and lawfully applied, I would take appropriate action to ensure that 
the case is properly resolved. I will coordinate with the Assistant 
Secretary of the Army (Manpower and Reserve Affairs), who exercises 
overall supervision of the Army Review Boards Agency, regarding the 
legal sufficiency of materials and recommendations that the Army Board 
for the Correction of Military Records is providing to senior 
Department of the Army leaders. In addition, I am aware of and fully 
respect the independent role that the Army Board for the Correction of 
Military Records plays in the correction of military records.
             sexual assault prevention and response policy
    Question. Numerous cases of sexual misconduct involving soldiers 
have been reported from Iraq, Kuwait, and Afghanistan over the last 
several years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
military failed to respond appropriately by providing basic services, 
including medical attention and criminal investigations of their 
charges.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of serious sexual 
assaults the medical, psychological, and legal help they need?
    Answer. This is an extremely important issue for the Army and, if 
confirmed, I will focus significant attention on this area. While I am 
not fully aware of all Army initiatives or resources, I understand that 
the Army has taken significant steps to improve the assistance to 
victims of all sexual assaults, with enhanced recognition of the 
special circumstances that apply to deployments. If confirmed, I will 
study this matter in greater depth with a view to ensuring the Army 
continues to take appropriate steps to provide medical, psychological, 
and legal help to soldiers who are victims of sexual assault, both in 
garrison and in deployed locations.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults on female soldiers at their home 
stations and when they are deployed?
    Answer. In my opinion, the Army has taken several extremely 
important steps in its campaign to prevent sexual assaults on female 
soldiers at their home stations and when they are deployed. I have been 
advised that the Army launched a new comprehensive sexual assault 
prevention campaign in 2008. If confirmed, I will ensure that the legal 
community fully supports this initiative and any others and will assess 
whether additional steps need to be taken. If confirmed, I look forward 
to working closely with Army leaders on this and other vital 
initiatives to prevent sexual assault.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. Presently, I am not familiar with all of the Army's 
training and resources to investigate and respond to allegations of 
sexual assault. If confirmed, I will assess whether additional steps 
should be taken to support victims and hold offenders accountable.
                        whistleblower protection
    Question. Section 1034, title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will work with The Judge Advocate General 
to ensure that military leaders are fully and accurately advised of the 
whistleblower protections accorded by law and regulation, and that they 
understand their legal responsibilities in this important area. In 
addition, I will ensure that any individual cases involving illegal 
reprisals that come to my attention are addressed in accordance with 
the law. Whistleblower protections for military personnel affirm that 
members of the Armed Forces shall be free from reprisal for making or 
preparing a protected communication to a Member of Congress; an 
Inspector General; a member of a DOD audit, inspection, investigation, 
or law enforcement organization; or any other person or organization 
(within or outside the chain of command) designated under regulations 
or established procedures to receive such communications. I believe 
that these protections are essential to the integrity of our process.
                   support to army inspector general
    Question. What role, if any, do you think the General Counsel of 
the Army should have in reviewing the investigations and 
recommendations of the Army Inspector General?
    Answer. If confirmed, as the chief legal officer of the Department 
of the Army and counsel to the Secretary and other Secretariat 
officials, I will establish and maintain a close, professional 
relationship with The Inspector General, and will communicate with him 
directly and candidly as he performs his prescribed duties. I will 
provide independent and objective legal advice with regard to all 
matters that relate to Inspector General programs, duties, functions, 
and responsibilities. I will oversee the provision of productive and 
effective legal guidance to the Office of the Inspector General in 
conducting investigations and delineating recommendations. Further, as 
part of my responsibility to review legal and policy issues arising 
from the Army's intelligence and counterintelligence activities, I will 
advise The Inspector General concerning proper reporting of the Army's 
intelligence oversight activities. Of course, given The Inspector 
General's mandate for independence and candor in advising the Secretary 
as to his investigative findings and recommendations, the Inspector 
General has final authority over matters within his functional purview.
                            women in combat
    Question. Section 541 of the National Defense Authorization Act for 
Fiscal Year 2006 required the Secretary of Defense to report to 
Congress on his review of the current and future implementation of the 
policy regarding assignment of women in combat. In conducting the 
review, the Secretary of Defense examined Army unit modularization 
efforts and associated personnel assignment policies to ensure their 
compliance with the Department of Defense policy on women in combat 
that has been in effect since 1994.
    What is your understanding of the conclusions and lessons that have 
been learned about the feasibility of current policies regarding women 
in combat from Operation Iraqi Freedom and Operation Enduring Freedom 
and what is your assessment of the Army's compliance with the 
requirements of law relating to women in combat?
    Answer. Although I have not reviewed the study in detail, it is my 
understanding that the study revealed that the Army is in compliance 
with the requirements of the law relating to women in combat. It is 
also my understanding that the Army's transformation to modular units 
took into account and is in compliance with the current assignment 
policy for women. Women have and will continue to be an integral part 
of the Army team, performing exceptionally well in all specialties and 
positions open to them.
    Question. In your view, should the current policy regarding 
assignment of women in combat be revised to reflect changing roles for 
female soldiers?
    Answer. At this point I do not believe that I have enough 
information to make an informed judgment about whether the policy 
should be changed. However, if I am confirmed and the Army determines 
after careful study and deliberation, that there is a need to seek a 
change to the policy, I will provide the Secretary with cogent legal 
advice regarding the changes sought and ensure that the Army complies 
with all of the notification requirements of the law.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career ladder, substantial training opportunities, and 
exposure to a broad spectrum of legal areas and problems. By contrast, 
civilian attorneys in the military departments normally do not have 
established career programs and may do the same work for many years, 
with promotion based solely upon longevity and vacancies.
    In your opinion, does the personnel management of civilian 
attorneys need revision? If so, what do you see as the major problems 
and what changes would you suggest?
    Answer. There appears to be a growing need for a systemic civilian 
attorney professional development program that appropriately reflects 
the tenets by which we have historically developed judge advocates. I 
understand that there is a Working Group in the Army for the purpose of 
assessing and recommending programs for the professional development of 
civilian attorneys. If confirmed, I would work closely with all of the 
entities affected by this issue to support the continuing and important 
efforts of the Working Group and any other initiative deemed 
appropriate.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Army?
    Answer. The client of the General Counsel of the Department of the 
Army is the Department of the Army, acting thorough its authorized 
officials.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Army attorney or an Army Judge Advocate should take if the attorney 
becomes aware of improper activities by a Department of the Army 
official who has sought the attorney's legal advice and the official is 
unwilling to follow the attorney's advice?
    Answer. Army attorneys generally provide legal advice to Army 
officials in their capacity as representatives of the Department of the 
Army. The Department of the Army is the attorney's client, and no 
attorney-client privilege is established between the attorney and the 
Army official. When an Army attorney advises an Army official, the 
official may use that advice to exercise official functions. If an Army 
attorney suspects that the individual Army official, either in the 
exercise of functions or in the failure to exercise functions, violates 
a law or standard of conduct, I believe that he or she should report 
the potential violation. Potential violations of the conflict of 
interest laws may be reported to Army criminal investigators; potential 
violations of provisions of the Federal Acquisition Regulation may be 
reported to the appropriate contracting officer; and potential 
violations of the standards may be reported to an Army ethics 
counselor, the head of the Army command or organization, the 
individual's or attorney's supervisor, or the Army Inspector General 
(IG), as appropriate. At all times, Army personnel and attorneys may 
report any misconduct to the IG or criminal investigators, either in 
person or anonymously.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed and revised?
    Answer. I understand that government attorneys may participate in 
pro bono activities so long as the representation is consistent with 
general governmental ethical rules and with the rules of professional 
responsibility applicable to attorneys. I understand that Army civilian 
attorneys may, for instance, perform pro bono work with supervisory 
approval so long as the representation does not occur on Government 
time or at its expense, does not interfere with official duties, and 
does not create a conflict of interest or the appearance of a conflict 
of interest. I understand the Army also operates legal assistance 
program for soldiers and families, providing free services in areas 
such as family law, wills and estate planning, tax law, landlord/tenant 
matters, contract disputes, consumer law, and assistance during the 
disability evaluation system. Although I am not aware of any need for 
revision of the present limits, it is important that government 
attorneys be able to participate in pro bono activities. If confirmed, 
I would review the current policy in coordination with The Judge 
Advocate General and recommend revisions, if appropriate.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Army provide adequate guidance?
    Answer. The Army has a comprehensive regulations, based upon the 
American Bar Association Model Rules of Professional Conduct which 
govern the ethical conduct of Army lawyers, both military and civilian. 
All Army attorneys, military and civilian, must, at all times, be in 
good standing with the licensing authority of at least one State, 
territory of the United States, the District of Columbia, or the 
Commonwealth of Puerto Rico. This regulatory system would appear to 
provide adequate guidance; however, if confirmed, I would review the 
current policy in coordination with The Judge Advocate General and 
recommend revisions, if appropriate.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Army procurement programs are executed in accordance with the law 
and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Acquisition, Logistics, and 
Technology), and other senior Department of the Army leaders to ensure 
that the Department of the Army's acquisition and procurement programs 
are executed in accordance with applicable provisions of the U.S. Code, 
as well as higher-level regulations and policy. Today's acquisition 
professionals face the challenge of managing their programs' cost, 
schedule, and performance while remaining in compliance with a myriad 
of legal and policy requirements. I believe it is the responsibility of 
Army lawyers to proactively assist their acquisition clients in meeting 
that challenge. From the earliest stages of program development, 
counsel should be involved in identifying potential issues and, where 
appropriate, legally-compliant alternative courses of action. In those 
rare situations, where an issue cannot be satisfactorily resolved, it 
is incumbent on counsel to promptly elevate their concerns in order to 
protect the Department's overarching interests.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by 
Army personnel and by Army contractors?
    Answer. Structuring Departmental business practices to avoid both 
personal and organizational conflicts of interest should be one of the 
Army's highest priorities. If confirmed, I will work closely with the 
Secretary of the Army, the Assistant Secretary (Acquisition, Logistics 
and Technology) and other senior Departmental officials to promote an 
organizational climate that is sensitive to the need to avoid conflicts 
of interest and that reacts appropriately when specific issues arise. I 
believe that Army lawyers can make a significant contribution to this 
endeavor through the provision of acquisition ethics training and 
through early and sustained involvement in the Department's acquisition 
programs and procurement activities.
    Question. Allegations of fraud and abuse during contingency 
contracting in Iraq and Afghanistan have been wide-spread. What role 
should the General Counsel play in ensuring that Army personnel are 
properly trained in contingency contracting and are supervised in the 
performance of their duties?
    Answer. It is my understanding that the contracting workforce was 
understaffed and not fully equipped to handle the resultant surge of 
contracting actions in support of our Nation's missions in Iraq and 
Afghanistan. This situation undoubtedly contributed to the widely 
publicized increase in allegations of fraud and abuse in connection 
with contracting in those theaters of operations. Secretary of the 
Army, Pete Geren, responded by appointing Dr. Jack Gansler to lead a 
special commission on contracting with the purpose of assessing current 
conditions and providing a long-term strategic view of the Army's 
acquisition and contracting system in support of expeditionary 
operations.
    If confirmed, I will work closely with the Secretary of the Army, 
the Assistant Secretary of the Army (Acquisition, Logistics, and 
Technology), and other senior Department of the Army personnel to 
ensure that the legal community continues to fully support the 
initiatives recommended and currently being implemented as a result of 
the Gansler Commission's assessment. One of the Commission's 
recommendations was to provide training and tools for contracting 
activities that would equip contracting personnel to handle the 
complexities of a contingency contracting mission for our warfighters, 
while assuring proper fiscal stewardship of taxpayer dollars. If 
confirmed, I will ensure the legal community is proactive in providing 
timely legal advice and training of the highest possible quality to 
effect the recommended Gansler Commission changes in compliance with 
the letter and spirit of the law. I would also work closely with The 
Judge Advocate General and the other Army legal qualifying authorities 
to ensure that adequate legal resources are available to support the 
contingency contracting mission.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of the Army in ensuring the integrity and proper 
functioning of the officer promotion process?
    Answer. As addressed above, I understand that, under title 10, 
U.S.C., Chapter 36, the Secretary of the Army is responsible for the 
proper functioning of the Department of the Army's promotion selection 
process. In addition to the legal review of memoranda of instruction 
and selection board reports to ensure they comport with statutory 
standards, the Army General Counsel must also ensure the conduct of the 
board process conforms to all legal requirements. Additionally, the 
Army General Counsel must advise the Secretary of the Army of any case 
in which a selection board report or selection board process fails to 
adhere to the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Army and the Office of the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), the General Counsel helps to 
ensure that Army promotion policies properly implement applicable laws 
and regulations and are fairly applied. Additionally, the Office of the 
Army General Counsel coordinates closely on these matters with The 
Office of the Judge Advocate General.
            litigation involving the department of the army
    Question. In your opinion, what is the relationship between the 
Department of the Army and the Department of Justice with respect to 
litigation involving the Department of Defense?
    Answer. The Department of Justice represents the Department of the 
Army in civil litigation. In general, my recollection is that 
coordination on every level is timely and consistent. If confirmed, I 
will work with The Judge Advocate General to ensure the continuation of 
a collaborative relationship with the Department of Justice with 
respect to litigation involving the Department of the Army.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. The Army's interests in civil litigation are effectively 
protected and defended by the Department of Justice. If confirmed, I 
will work with The Judge Advocate General to ensure that adequate 
resources are available to ensure that the Army is able to provide the 
appropriate level of support to the Department of Justice and protect 
the Army's interests in civil litigation in which the department is 
involved.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Mel Martinez
                        experience at fannie mae
    1. Senator Martinez. Mr. Remy, the Office of Federal Housing 
Enterprise Oversight (OFHEO) Report of the Special Examination of 
Fannie Mae of 2006 identified numerous accounting discrepancies and 
management failures at Fannie Mae during the period from 1998 to 2004. 
The report details a corporate culture where Fannie Mae employees 
manipulated accounting and earnings to trigger bonuses for senior 
executives from 1998 to 2004. Please explain your involvement as the 
Deputy General Counsel and Vice President for Housing and Community 
Development from 2000 to 2006 in the events described in the 
investigation that led to the 2006 OFHEO Report.
    Mr. Remy. During most of my tenure at Fannie Mae, I served as an 
attorney in the Office of the General Counsel. In that capacity I was 
principally responsible for advising on litigation, employment law, 
antitrust, procurement contracts, internal investigations of employee 
or contractor malfeasance, and building and maintaining a compliance 
system for adherence to laws, regulations, and the Code of Conduct. I 
did not perform any accountant functions, and made no accounting 
judgments. Similarly, during my time in the Housing and Community 
Development Division, I was not involved in any accounting activities, 
but rather was responsible for humanitarian relief and investment in 
rebuilding communities along the Gulf Coast after Hurricanes Katrina 
and Rita. More particularly, at no time was I involved in any way in 
making any accounting judgment, including the specific accounting 
judgments reviewed by the OFHEO, and I was not implicated in any way in 
the errors that were the focus of the Special Examination conducted by 
OFHEO.
    The 2006 Report of the Special Examination of Fannie Mae issued by 
OFHEO was the product of a multi-year review by the company's 
regulator, focused on whether the implementation of certain accounting 
pronouncements complied with Generally Accepted Accounting Principles 
(GAAP). The original impetus was the December 2003 Report of the 
Special Examination of Freddie Mac and an effort to determine whether 
similar issues existed at Fannie Mae. During the course of its review, 
OFHEO concluded that a number of accounting policies and practices--
including those relating to premium and discount amortization (FAS 91) 
and derivatives and hedging activities (FAS 133)--had been erroneous. 
OFHEO also addressed more general problems relating to accounting 
policy development, poor segregation of duties of the CFO, and other 
internal control deficiencies. All of these issues were described in a 
211 page September 2004, Report of Findings to Date of the Special 
Examination of Fannie Mae. As I played no role in the accounting 
practices being reviewed, I was not mentioned at all in that report.
    Subsequent to the September 2004 report, the Board of Fannie Mae 
hired former Senator Warren Rudman and the law firm of Paul Weiss 
Rifkin Wharton & Garrison (Paul Weiss) to conduct an independent review 
of the issues identified in the OFHEO Report and any other issues they 
deemed appropriate. Paul Weiss issued a 616 page report at the 
conclusion of its review. While I was mentioned in that report 
regarding my compliance roles and responsibilities, I was in no way 
found to have engaged in any improper activity.
    Further, in December 2004 the U.S. Securities and Exchange 
Commission (SEC) determined that the accounting policies of Fannie Mae 
for both FAS 91 and FAS 133 departed from GAAP and advised the company 
to restate its financial statements for the years 2001 through 2004. 
Nothing regarding my conduct or matters falling within my areas of 
responsibility was implicated in any way in the SEC's investigation.
    OFHEO's Special Examination continued, as it looked into additional 
accounting issues and other issues. In May 2006, OFHEO issued its 340 
page Report of the Special Examination of Fannie Mae (the ``2006 OFHEO 
Report'' or the ``Report''). Some of my appearances in this report were 
identified in your letter and are discussed in summary below and more 
fully in response to your specific questions. I am not certain if any 
of these instances in which I am mentioned are responsive to your 
requcst in this question for information regarding my ``involvement in 
. . . events described in the investigation that led to the . . . 
report.'' Nonetheless, I list them here in an effort to be responsive 
and complete.

        <bullet> First, in the section of the report that is related to 
        OFHEO's regulatory authority, I am referenced regarding advice 
        and legal strategy discussed with the General Counsel. As a 
        Deputy General Counsel responsible for litigation it was part 
        of my job to engage with the General Counsel on matters that 
        might involve litigation. This is a reference to one such 
        conversation. This mention, which is discussed in further 
        detail below, however does not find that I am responsible for 
        any improper corporate culture, tone at the top, or regulatory 
        interference.
        <bullet> Next, I am referenced as having transferred 
        information in my official capacity to the external auditor 
        regarding an internal investigation. This reference 
        demonstrates that as the Chief Compliance Officer I properly 
        informed the external auditor of some issues raised by an 
        employee.
        <bullet> Another reference to me appears in a footnote 
        describing a memorandum that I wrote which reflected that the 
        Company's external auditor was at a meeting regarding an 
        internal investigation in which it was determined that certain 
        items had been properly accounted for. I was the supervisor of 
        some of the individuals who conducted the investigation into 
        allegations made by an employee that accounting amortization 
        practices were improper, allegations that his reporting 
        environment discouraged dissent, and allegations that he was 
        discriminated against. In my capacity as Chief Compliance 
        Officer, I wrote a memorandum to memorialize and consolidate 
        the final findings of these various investigations.
        <bullet> In another footnote my name appears as having been 
        cc'd on an e-mail from the General Counsel regarding responses 
        to a question posed by an employee in a town hall ``unplugged'' 
        meeting held by the Chief Operating Officer.
        <bullet> Finally, I am referenced as having been given the 
        title of and certain responsibilities as Chief Compliance 
        Officer, which OFHEO found conflicted directly with my 
        responsibilities for managing the defensive components of the 
        Legal Department (i.e., litigation and employment.) OFHEO did 
        not conclude or even suggest that the potential for conflict 
        resulted in any instances of improper conduct or actual 
        conflicts that impacted my job performance.
        <bullet> Also, although not referenced in the Report, I 
        assisted in the efforts to produce documents and witnesses to 
        OFHEO to help facilitate its examination.

    2. Senator Martinez. Mr. Remy, the 2006 OFHEO Report details that, 
while you were serving in a senior position at Fannie Mae, Fannie Mae 
over-reported its earnings by a total of $10.6 billion. Earnings 
management made a significant contribution (approximately $52 million) 
to the compensation of then Chairman and CEO totaling over $90 million. 
We all know the ramifications of unethical behavior in the mortgage 
market. Describe what you did in your role as Senior Vice President for 
Housing and Community Development of Fannie Mae between 2003 and 2006 
to prevent or mitigate these false earning reports.
    Mr. Remy. In my role in as SVP, Housing and Community Development 
from late 2005 until my departure in 2006, I was responsible for 
developing a plan for humanitarian relief and investment in rebuilding 
communities along the Gulf Coast most affected by Hurricanes Katrina 
and Rita. Much of this time, I was on the ground with the victims of 
the storms and community leaders in Louisiana, Mississippi, Alabama, 
Florida, and Texas attempting to help develop solutions to critical 
housing issues. I had no role or responsibilities in that job with 
respect to accounting or earning reports.

    3. Senator Martinez. Mr. Remy, did you know of these false earning 
reports?
    Mr. Remy. I was unaware of the accounting errors that led to the 
restatements of earnings or any false earnings reports or earnings 
management that OFHEO concluded led to higher bonuses. Nothing in my 
job responsibilities or my skill sets would have put me in a position 
to have knowledge of those issues before the potential problems were 
identified through allegations, investigations or examinations by 
regulators. Once the accounting problems, which impacted earnings, were 
identified the company withdrew its financial statements and 
established a restatement team to mitigate the problems that had been 
created. I was not part of those decisions or the restatement effort.

                   advanced policy question reponses
    4. Senator Martinez. Mr. Remy, on answering the advanced policy 
question (APQ) for the committee, ``What background and experience do 
you possess that you believe qualifies you to perform these duties?'', 
you failed to recognize Fannie Mae as your employer. At any time during 
the vetting process for this nomination, were you advised to remove 
references to Fannie Mae in your biography or this APQ? If not, why did 
you decide to not be candid with the committee about your employment 
with Fannie Mae?
    Mr. Remy. No. I was never told to remove references to Fannie Mae 
from my biography or my APQ response. I have tried, at all times, to be 
completely and fully candid with the committee. Indeed, I clearly 
stated my past employment with Fannie Mae in other materials I 
submitted to the committee and in a courtesy call with committee staff. 
In submitting my biography, I used one of several versions that I have 
used in the private sector. That more summary version discusses certain 
segments of my work experience generally, and does not expressly 
reference Fannie Mae. That version, however, should never have been 
used to respond to the APQ or sent to the committee, which has a duty 
to carefully evaluate all of my experience and qualifications. That was 
a mistake for which I take full responsibility. I have answered the 
enclosed questions and other questions asked by the committee about my 
tenure at Fannie Mae fully and frankly, as I am certain there is 
nothing in my service there by which I cannot proudly stand.

  office of federal housing enterprise oversight review of fannie mae
    5. Senator Martinez. Mr. Remy, on May 23, 2006, James B. Lockhart, 
Acting Director of the OFHEO said he found an ``environment where the 
ends justified the means'' and ``there was a systematic effort by 
senior management to manipulate accounting, reap financial rewards, and 
prevent the rest of the world from knowing about it.'' Fannie Mae 
agreed to pay $400 million as part of settlements with OFHEO and the 
SEC. For the 6 years, you were a senior executive within Fannie Mae. 
Can you explain your involvement in the OFHEO's investigation and in 
the subsequent settlement?
    Mr. Remy. OFHEO's Special Examination of Fannie Mae began in 2003 
and ended with the release of its report in May 2006. Hence, my 
involvement in the Special Examination did not begin until 2003. I 
assisted in the Company's efforts to preserve and produce documents and 
witnesses to OFHEO. I was not involved in the settlements with OFHEO 
and the SEC.

              pay and bonus structure while at fannie mae
    6. Senator Martinez. Mr. Remy, the committee understands you were 
employed with Fannie Mae from 2000 to 2006. Please provide a schedule 
of your total annual compensation (including but not limited to your 
annual salary and bonuses) for each of the 6 years you were employed at 
Fannie Mae.
    Mr. Remy. The following is a schedule of my salary, bonus, and 
stock awards. I also have included the severance payments I received 
upon departure. As the long-term stock and Performance Share Plan (PSP) 
compensation are more complex and very difficult to value, I provide 
you with the stock option or restricted stock award amounts. I never 
exercised a single stock option that I was granted--which are all now 
expired. Hence the actual value of all options received by me during by 
entire 6 years with the company is $0.00. Moreover, many of the 
restricted shares that I was granted were sold at a loss.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                Restricted Stock Awarded
                             Year                                Salary\1\  Cash Bonus   Options Granted \3\               \4\             Severance \7\
--------------------------------------------------------------------------------------------------------------------------------------------------------
2000..........................................................    $160,000     $68,800        6,960 @ $60.84                2,000 shares
                                                                                              5,700 @ $77.10
2001..........................................................    $164,800     $92,000        3,680 @ $78.56
                                                                                              8,030 @ $80.95
2002 \2\......................................................    $215,000    $219,375
2003..........................................................    $235,000    $229,800        2,718 @ $69.43
                                                                                              6,693 @ $69.43
2004..........................................................    $258,000      \5\ $0        9,476 @ $78.32
2005..........................................................    $280,000  \6\ $332,5                     0            \6\ 3,100 shares
                                                                                    00                                      6,039 shares
2006..........................................................    $290,500          $0                     0                               \8\ $391,058
                                                                                                                                           \9\ $274,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Salary for each year is annualized, not actual.
\2\ Promoted to Senior Vice President during 2002 and salary was increased to $215,000.
\3\ Options are listed based upon year of grant. Of course, they only have value if they increase above the strike price. Options however vest over a
  period of 3 or 4 years. All options currently have no value and in any event have expired. I never exercised any options and therefore received no
  value from these grants.
\4\ Restricted shares vest either over a period of 3 years or 4 years. The value of the stock is attributed as income in the year that they vest.
\5\ No bonus pool was available due to restatement.
\6\ Includes retention bonuses and accelerated vesting upon departure in 2006.
\7\ I left the company and upon departure received severance payouts under the standard Management Group Severance Program at the time. I also received
  a distribution of deferred compensation upon departure.
\8\ I was paid 1 year of salary, plus 3 weeks of salary for every year of service. Severance also included payout of prorated bonus.
\9\ Received final payment of retention bonus.


    7. Senator Martinez. Mr. Remy, please describe to what extent any 
of your compensation was directly tied to the performance of Fannie 
Mae's earnings per share.
    Mr. Remy. I was eligible to receive a bonus under Fannie Mae's 
Annual Incentive Plan (AIP), if the pool was funded for bonuses. During 
most of the years I was at Fannie Mae, the AIP funding pool was set in 
part based upon the company's performance, including EPS, but I 
understand that the actual bonus I received was based on my job 
performance (i.e., quality of work, responsiveness of direct reporting 
organizations, soundness of judgment, and progress of organizational 
improvements), which was unrelated to the financial performance of the 
company. Once I was promoted to Senior Vice President, I also was 
eligible to participate in Fannie Mae's PSP--a long-term stock 
compensation plan that is based both on financial and nonfinancial 
company goals. However, grants and vesting under that plan were 
suspended during the restatement and only one of the grants from that 
plan vested while I was with Fannie Mae.

               conflicts of interest while at fannie mae
    8. Senator Martinez. Mr. Remy, the 2006 OFHEO Report states your 
position of Chief Compliance Officer was in direct conflict of interest 
with your responsibilities for managing the employment law, antitrust, 
and potential criminal and civil liability groups in the Legal 
Department. Do you agree with this summary? If so, why did you not 
realize this then? If not, what steps did you take to mitigate or 
eliminate the apparent conflict?
    Mr. Remy. During almost my entire time at Fannie Mae I served as 
one of several Deputy General Counsels in the Office of the General 
Counsel providing legal advice to the Company through its executives. 
My job responsibilities were set by my superiors and over time I was 
rewarded for hard work and delivering results with new and challenging 
assignments. I was given the assignment of building a new compliance 
system at the time I already had responsibility for among other areas, 
employment law, litigation, and the Office of Corporate Justice (OCJ). 
To me, it was a logical assignment, given the work that I already had 
been doing with OCJ and my ability to succeed as a project manager. 
Although it was found that my duties as the senior reporting official 
for litigation, employment, or defensive activities potentially 
conflicted with my responsibilities as the senior reporting official 
for the Office of Corporate Justice or Office of Corporate Compliance, 
it was never found or suggested that such a conflict resulted in any 
actual or apparent impropriety. Quite to the contrary, I believe that I 
was widely regarded as an excellent manager and superior steward of the 
Company's interest--even when that required making hard unpopular 
decisions. Moreover, the 2006 OFHEO Report expressly determined that I 
was not the person responsible for the creation of such potential 
conflicts.
    Before the OFHEO Report was released in May 2006, I already had 
relinquished my responsibilities as Chief Compliance Officer and 
management of OCJ and taken on new responsibilities in the Housing and 
Community Development Division regarding responses to Hurricanes 
Katrina and Rita. As a result, any apparent conflict had been 
eliminated.

      fielding concerns of inappropriate accounting at fannie mae
    9. Senator Martinez. Mr. Remy, on September 9, 2003, the Director 
of Securities of Fannie Mae brought to the Chief Operating Officer 
concerns about Fannie Mae's accounting, including amortization 
accounting, which had also been brought up by another employee a month 
earlier. The head of the Office of Auditing validated these concerns, 
yet the firm's General Counsel later disregarded them. This was despite 
the Baker Botts LLP internal report on Freddie Mac demonstrating fraud 
in their accounting. At that time, you were the Deputy General Counsel 
at Fannie Mae and reportedly carbon copied on the General Counsel's 
emails (OFHEO Report pages 269-270).
    Please inform the committee of your role with regard to enforcing 
regulatory compliance of amortization accounting, if you did or did not 
speak to the concerns of the Director of Securities at the time, and if 
you had supported the General Counsel's dismissal of the Director's 
validated concerns.
    Mr. Remy. As discussed above, I did not have any responsibility for 
setting any accounting policies or practices, including amortization 
accounting. Moreover, monitoring, developing internal controls, and 
assuring compliance with accounting policies was not part of my duties 
or responsibilities.
    If anyone at the company raised a concern about accounting, the 
Office of Corporate Compliance and later the Office of Corporate 
Justice, did however, have authority to investigate such allegations of 
improper accounting. Because no one in those offices (including me) was 
an accountant, however, such an investigation would require the use of 
an accounting firm or other knowledgeable accounting experts to 
conclude whether the accounting was appropriate. While most allegations 
that led to investigations did not involve accounting issues, those 
that did followed this process and in fact the OCJ used an independent 
expert boutique accounting firm on a number of occasions to look at the 
issues. If findings of impropriety were found, corrective action would 
be required and would be enforced by one of those offices under my 
supervision. For example, in an actual investigation of amortization 
accounting issues conducted weeks earlier, there also were allegations 
regarding work environment. Because the findings identified some 
problems, corrective actions were required and were enforced by the 
OCC.
    In my roles in the Office of the General Counsel, I reported to the 
General Counsel and she on occasion copied me on messages for 
informational rather than action purposes. This would make sense in 
this instance given the prior investigation of amortization accounting 
of which I was aware. Although on OFHEO report page 269-270 it cites to 
an e-mail from her where she apparently copied me, I do not recall 
being involved in addressing this Director's concerns and therefore 
would have no basis to support or reject a determination of the 
internal auditor or an action of the General Counsel.
    In response to Questions for the Record from Senator McCain, I 
provided an answer to a similar question which I believed at the time 
related to a different investigation into amortization accounting 
issues. Your citation to page numbers in your question prompted me to 
look up those specific pages in the OFHEO Report. As a result, I now 
have realized that I misunderstood Senator McCain's question and just 
as you are, he in fact was asking about the circumstances described on 
page 269-270 of the OFHEO Report.
    In the interest of completeness, however, I provide you below the 
answer to the question that Senator McCain asked, which I mistakenly 
believed referred to an actual investigation conducted weeks earlier 
into an allegation of improper accounting amortization made by a 
different employee.

          What were Mr. Remy's actions with respect to the internal 
        investigation and were they proper?
          Yes, my actions with respect to the internal investigation 
        into allegations of improper amortization accounting were 
        proper and no investigation or inquiry has found otherwise. I 
        did not choose the method, structure or personnel to conduct 
        the investigation--that was done by the General Counsel. I did 
        not interview witnesses or develop facts in connection with the 
        investigation. I was not present at the meeting when internal 
        audit presented its views to the employee and external 
        auditors. I did, however, communicate the results of the 
        investigation to the external auditor and discussed with them 
        follow-up forensic work. I also reviewed drafts of the OCC 
        report on the work environment in the controller's office and 
        the OCJ report on discrimination. I issued a final memorandum 
        memorializing the findings in the OCC, OCJ, and litigation 
        aspects of this matter upon the conclusion of each of its 
        parts.

                        chief compliance officer
    10. Senator Martinez. Mr. Remy, in a letter you wrote to the Senate 
Armed Services Committee on April 28, 2009, you state that from late 
2002 to late 2005 you ``supervise(d) internal investigations.'' 
According to the 2006 OFHEO Report, on September 9, 2003, the Director 
of Securities brought up an issue with Fannie Mae's accounting 
practices which resembled practices deemed inappropriate in an internal 
Freddie Mac investigation done by Baker Botts LLP. What role did you 
play in this internal Fannie Mae investigation? If there was no formal 
internal investigation, why wasn't there?
    Mr. Remy. As noted in response to question 9, I do not recall 
playing a role in this matter at all. If I did, it would have been to 
do nothing more than to receive an informational cc: as described above 
and perhaps to provide input if I had any. The little I do recall about 
this matter after reading your references in the report is that it was 
a response to a question posed at a town hall ``unplugged'' session. It 
was not the type of whistle blower employee complaint or allegation 
that necessarily would have required an OCJ or OCC investigation; 
rather it appears that it was a ``question'' posed by an employee to 
which a complete answer was owed. In that context, I do not find it 
unusual for the Chief Operating Officer to get the ``right'' people--
head of internal audit, general counsel, external audit--involved in 
finding out the answer and reporting back to the employee promptly.

    11. Senator Martinez. Mr. Remy, in an e-mail dated April 28, 2004, 
you wrote to then General Counsel of Fannie Mae that you recommended 
that Fannie Mae sue the OFHEO to prevent an impending investigation of 
Fannie Mae by OFHEO. Please describe all of the reasons you now believe 
it was appropriate for Fannie Mae to obstruct OFHEO's planned 
investigation.
    Mr. Remy. The April 28, 2004 e-mail referenced above was wholly 
unrelated to OFHEO's ongoing Special Examination of Fannie Mae, and 
does not state or suggest in any way that the Company take legal action 
to prevent any such investigation of Fannie Mae. Instead, the e-mail 
relates to press accounts of regulation being considered by OFHEO that 
appeared to go beyond the authority granted the agency by Congress. In 
providing candid advice, I laid out alternatives to address this, 
including the company availing itself of the procedures authorized in 
the Administrative Procedures Act, which provides a mechanism for 
independent court review of agency actions that may go outside the 
scope of their authority.

                 internal control systems at fannie mae
    12. Senator Martinez. Mr. Remy, in a letter you wrote to the Senate 
Armed Services Committee on April 28, 2009, you state that from late 
2002 to late 2005 you were ``given the responsibility of developing and 
implementing Fannie Mae's first corporate wide centralized legal and 
regulatory compliance system.'' According to the 2006 OFHEO Report, 
``Senior executives exploited the weaknesses of the Enterprise's 
(Fannie Mae) accounting and internal control system.'' Please explain 
whether the ``regulatory compliance system'' described in your letter 
is the same ``internal control systems'' which were exploited by 
executives to increase their bonuses per the AIP.
    Mr. Remy. The legal and ``regulatory compliance system'' described 
in my letter and the accounting ``internal control system'' for 
financial reporting referenced above are wholly unrelated. The first 
was within my area of responsibility; the second completely outside. As 
discussed above, I was responsible for constructing a program that 
would help ensure the Company's compliance with certain applicable laws 
and regulations, as well as compliance with the Company's own Code of 
Conduct. These include, but are not limited to, laws and regulations 
such as anti-money laundering, antitrust, Title VII, fair housing and 
fair lending, and intellectual property. Again, my responsibilities did 
not include developing internal controls for financial reporting under 
GAAP. That type of responsibility rest with the Controller's office and 
the Office of Internal Audit would audit its effectiveness.
                                 ______
                                 
    [The nomination reference of Donald M. Remy follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Donald Michael Remy, of Virginia, to be General Counsel of the 
Department of the Army, vice Benedict S. Cohen, resigned.
                                 ______
                                 
    [The biographical sketch of Donald Michael Remy, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Donald Michael Remy
    Mr. Remy is a partner in the Washington, DC, Office of Latham & 
Watkins, where he defends individual and corporate clients in criminal 
and other government investigations, as well as civil litigation. In 
addition, Mr. Remy advises corporations on issues involving the 
International Traffic and Arms Regulations, the Office of Foreign 
Assets Control and Foreign Corrupt Practices Act enforcement, as well 
as financial, accounting and procurement fraud and general corporate 
governance.
    Prior to joining Latham & Watkins, Mr. Remy served as an attorney 
and business person for a major U.S. company where he held a number of 
positions including: Vice President and Deputy General Counsel for 
litigation; Senior Vice President and Deputy General Counsel; Senior 
Vice President and Chief Compliance Officer; and Senior Vice President, 
Housing and Community Development. In these roles, his responsibilities 
included managing litigation, handling employment law matters, advising 
on procurement contracts, investigating employee and contractor 
malfeasance, developing and implementing a corporate compliance system, 
and building an investment strategy to rebuild communities on the Gulf 
Coast after Hurricane Katrina.
    From 1997-2000 Mr. Remy served in the U.S. Department of Justice as 
a Senior Counsel for Policy and as a Deputy Assistant Attorney General 
for the Torts and the Federal Programs Branches of the Civil Division. 
He supervised litigation on behalf of 100 Federal agencies, the 
President and Cabinet officers, and other governmental officials. Those 
matters involved a myriad of subject areas and included the defense 
against constitutional challenges to Federal statutes, suits to 
overturn government policies and programs, and attacks on the legality 
of government decisions. Mr. Remy also personally handled litigation in 
the matters arising out of the events at Waco and Ruby Ridge.
    As an Army Captain, Mr. Remy was an Assistant to the General 
Counsel of the Army from 1991-1995, where he advised senior Army 
officials on legal and policy issues concerning all aspects of 
government contracting, specifically including major weapon system 
acquisition. Further, he assisted in the Army's litigation of bid 
protests and contract disputes and assisted the Department of Justice 
in government contract litigation that directly affected the Army. 
During his tour of duty at the Pentagon, Mr. Remy was detailed on 
special projects to other offices in the Department of Defense where he 
analyzed statutes and regulations governing programs affecting small 
and disadvantaged business and historically black college and 
university contracting with the Department of Defense, recommended 
modifications to ensure compliance with both the law and the 
President's guidance, assisted in development of the Department of 
Defense position on acquisition reform, crafted proposed legislation 
related to the Federal Acquisition Streamlining Act, negotiated 
legislative proposals, drafted portions of Defense Performance Reviews, 
and coordinated with the Office of the Vice-President on issues related 
to the National Performance Review.
    Mr. Remy also served as a clerk to The Honorable Nathaniel R. Jones 
of the U.S. Court of Appeals for the Sixth Circuit. Mr. Remy is a cum 
laude graduate of Howard University School of Law and received his 
undergraduate degree from Louisiana State University, where he 
graduated with honors and was commissioned a 2nd Lieutenant in the U.S. 
Army. Mr. Remy has published, lectured, and testified before Congress 
on legal topics relating to torts, constitutional law, employment law, 
diversity, government contracts, litigation, and compliance. In 2005, 
Mr. Remy was recognized by Black Enterprise as one of America's most 
powerful executives under 40. He is a DC Bar Delegate to the American 
Bar Association. Further, Mr. Remy sits on the Boards of Louisiana 
State University-University College, the Washington Lawyers Committee 
on Civil Rights and Urban Affairs, the Abramson Foundation, and the 
Legal Counsel for the Elderly.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Donald M. Remy 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Donald Michael Remy; Don Remy.

    2. Position to which nominated:
    General Counsel, Department of the Army.

    3. Date of nomination:
    April 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 8, 1967; Fort Lee (Petersburg), VA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Monitra Charrise Lashawn Butler.

    7. Names and ages of children:
    Jonathan Alexander Remy; 15.
    Jason Andrew Remy; 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Howard University School of Law, 08/1988-05/1991, J.D.-05/11/1991.
    Louisiana State University, 08/1984-05/1988, B.A.-05/18/1988.
    University of New Orleans, 05/1986-08/1986.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Latham & Watkins LLP, Partner, 555 11th St., NW., Washington, DC, 
09/06-Present.
    Fannie Mae, Senior Vice President & Deputy General Counsel, 11/02-
03/06, Vice President & Deputy General Counsel, 03/00-11/02, 3900 
Wisconsin Ave., NW, Washington, DC.
    U.S. Department of Justice, Deputy Assistant Attorney General, 
Civil Division, 950 Pennsylvania Ave., Washington, DC, 03/97-03/00.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Consultant (SGE), Department of Defense, April 17, 2008-present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner--Latham & Watkins LLP
    Member of Board of Directors--Washington Lawyers Committee on Civil 
Rights & Urban Affairs
    Member of Board of Directors--Abramson Foundation
    Member of Board of Directors--Louisiana State University, 
University College
    Member of Board of Directors--AARP, Legal Counsel for the Elderly
    DC Bar Delegate--ABA House of Delegates

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See response to question 11 above. Additionally, I hold the 
following memberships:

          Member, American Bar Association
          Member, National Bar Association
          Member, Washington Bar Association
          Member, District of Columbia Bar
          Member, Pennsylvania Bar Association
          Member, Kappa Alpha Psi Fraternity
          Member, Army Navy Club
          Volunteer Coach, Cardinal AAU Basketball

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Obama for America: Volunteer (conducted canvassing in various 
States), fundraiser (Member of the Mid-Atlantic Finance Committee), and 
legal advisor (assisted with election protection and other legal 
issues).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    10/15/08 Barack Obama--Obama Victory Fund--$1,000
    09/30/08 Barack Obama--Obama Victory Fund--$1,000
    09/21/08 Barack Obama--Obama Victory Fund--$1,000
    03/21/07 Barack Obama--Obama for America--$2,300
    03/31/06 Hillary Clinton--Friends of Hillary--$1,000
    10/15/05-1/7/06 Payroll deduction to Fannie Mae Pac--$5,000
    05/03/05 Adrian Fenty Exploratory Committee--$250
    06/24/04 Fannie Mae Pac--$5,000
    06/12/04 Barack Obama--Obama for Illinois--$1,000

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Fellow, Litigation Counsel of America; America's Most Powerful 
Executives under 40, Black Enterprise Magazine; Meritorious Service 
Medal, U.S. Army; American Jurisprudence Award for Torts, Criminal Law, 
Remedies, Commercial Paper, Small Business Law, and Constitutional Law 
II; Merit Scholarship for High Scholastic Achievement (Full Law School 
Tuition); Chancellor's Scholarship; National Political Science Honor 
Society; 4 Year Army ROTC Scholarship; Distinguished Military Graduate.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    U.S. Department of Justice Makes Prevention and Prosecution of 
Procurement Fraud a Top Priority through Creation of National 
Procurement Fraud Task Force. Latham & Watkins Client Alert, January 
22, 2007.
    Commission on Wartime Contracting First Public Hearing: Burgeoning 
Waste, Fraud and Abuse Investigations. Latham & Watkins Client Alert, 
February 10, 2009.
    Student Note: The Constitutionality of Drug Testing in Government 
Regulated ``Private'' Industries 34 Howard Law Journal 4 1990.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Donald M. Remy.
    This 27th day of April, 2009.

    [The nomination of Donald M. Remy was withdrawn by the 
President on June 17, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. Michael Nacht by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. There is now a generation of military leaders 
who are experienced with operating in a coordinated and joint, multi-
service environment. At this time, I do not see the need to change the 
provisions of this legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I see none at this time.
                             relationships
    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense.
    Answer. Under the direction of the Under Secretary of Defense for 
Policy, the Assistant Secretary of Defense for Global Strategic Affairs 
(ASD(GSA)) advises the Secretary of Defense on global security strategy 
and policy on issues of DOD interest that relate to nuclear weapons, 
missile defense, countering weapons of mass destruction (WMD), and the 
space and cyberspace domains.
    Question. The Deputy Secretary of Defense.
    Answer. The ASD(GSA) provides similar support to the Deputy 
Secretary of Defense as described above.
    Question. The Under Secretary of Defense for Policy.
    Answer. The ASD(GSA) provides similar support to the Under 
Secretary of Defense for Policy as described above.
    Question. The Under Secretary of Defense for Acquisition Technology 
and Logistics.
    Answer. At the direction of the Under Secretary for Policy, the 
ASD(GSA) works closely with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics to achieve the Secretary's 
objectives and ensure that policy formulation and execution are well 
informed and supported appropriately. The ASD(GSA) also provides policy 
input regarding acquisition and programmatic activities of the Under 
Secretary of Defense for Acquisition Technology and Logistics that 
relate to nuclear weapons, missile defense, countering WMD, and the 
space and cyberspace domains.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. The ASD(GSA) works with the Assistant Secretary of Defense 
for International Security Affairs to provide sound policy advice to 
the Under Secretary and the Secretary on crosscutting global security 
strategy and policy issues, such as countering the proliferation of WMD 
in the Middle East.
    Question. The Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    Answer. The ASD(GSA) works with the Assistant Secretary of Defense 
for Asian and Pacific Security Affairs to provide sound policy advice 
to the Under Secretary and the Secretary on crosscutting global 
security strategy and policy issues, such as the requirement for a 
missile defense system in the Pacific region.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. The ASD(GSA) works with the Assistant Secretary of Defense 
for Homeland Defense to provide sound policy advice to the Under 
Secretary and the Secretary on crosscutting global security strategy 
and policy issues, such as enhancing the survivability of critical 
cyberspace infrastructure.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict
    Answer. The ASD(GSA) works with the Assistant Secretary of Defense 
for Special Operations/Low-Intensity Conflict and Interdependent 
Capabilities to provide sound policy advice to the Under Secretary and 
the Secretary on crosscutting global security strategy and policy 
issues.
    Question. The Assistant to the Secretary for Nuclear Chemical and 
Biological Defense.
    Answer. The ASD(GSA) works with the Assistant to the Secretary for 
Nuclear and Biological Defense (ATSD-NCB) to provide sound policy 
advice to the Under Secretary and the Secretary on crosscutting global 
security strategy and policy issues. The ATSD-NCB is responsible for 
implementing the range of activities for which the ASD(GSA) develops 
policy guidance. Therefore, the relationship between the two offices 
should be very close.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President and the National Security Council, the Chairman 
has a unique and critical military role. At the direction of the Under 
Secretary or Principal Deputy Under Secretary of Defense for Policy, 
the ASD(GSA) works with the Chairman and Vice Chairman to provide 
support on matters that affect strategy and policy for nuclear weapons, 
missile defense, countering WMD, and the space and cyberspace domains, 
working to ensure that military advice is taken into account in an 
appropriate manner.
    Question. The Service Secretaries.
    Answer. The ASD(GSA) works with the Service Secretaries on a broad 
range of global strategic issues.
    Question. The Service Chiefs.
    Answer. The ASD(GSA) works with the Service Chiefs on a broad range 
of global strategic issues.
    Question. The regional combatant commanders.
    Answer. In coordination with the Chairman of the Joint Chiefs of 
Staff, the ASD(GSA) works closely with the regional combatant 
commanders to provide policy oversight of strategy, plans and 
operations in support of the Under Secretary of Defense for Policy, the 
Secretary of Defense, and the President of the United States.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration
    Answer. The ASD(GSA) works with the Administrator and Deputy 
Administrators of the National Nuclear Security Administration to 
provide sound policy advice to the Under Secretary and the Secretary on 
crosscutting global security strategy and policy issues, relating to 
nonproliferation of nuclear weapons, nuclear material security, U.S. 
nuclear stockpile matters, and related issues.
                                 duties
    Question. The position for which you have been nominated is being 
substantially restructured.
    What is your understanding of the duties that you will be assigned 
if you are confirmed?
    Answer. My understanding is that the newly restructured Assistant 
Secretariat for Global Strategic Affairs is primarily responsible for 
advising and supporting the Under Secretary of Defense for Policy and 
the Secretary of Defense on policy and strategy in the areas of nuclear 
weapons, missile defense, countering WMD and the space, and cyberspace 
domains.
    Question. Are there any additional or other duties that have not 
yet been assigned but are under discussion for assignment to the office 
of the Assistant Secretary for Global Security Affairs?
    Answer. I am not aware of any duties that have not yet been 
assigned but are under discussion for assignment to the ASD(GSA).
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. My career has focused on technology, national security and 
public policy, which is the centerpiece of GSA's responsibilites. I 
have considerable government experience working these issues.
    Question. What additional actions do you believe you need to take, 
if any, to fulfill the responsibilities of this position?
    Answer. If confirmed, I will work closely with the stakeholders in 
Office of the Secretary of Defense (OSD) Policy, AT&L, the Joint Staff 
and others to ensure sound and effective policy development.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for Global Security 
Affairs?
    Answer. The ASD(GSA) will be involved in a number of major reviews 
relating to key DOD mission areas. These include the Nuclear Posture 
Review (NPR), the Missile Defense and Space Posture Reviews, as well as 
implementation of the interagency Cyber Policy review. In addition, the 
ASD(GSA) will be able to play an important supporting role in new U.S. 
Government overtures to the Russian Federation, particularly in the 
nonproliferation and nuclear security areas where DOD has previously 
developed good working relationships.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed as ASD(GSA), I believe the key priority for 
addressing these challenges will be prompt establishment of close 
relationships with key stakeholders in DOD, among interagency partners, 
and in Congress to develop broadly coordinated solutions.
    Question. What do you anticipate will be the most serious problems 
in the performance of your responsibilities?
    Answer. If confirmed, I will assess the resources and other 
``tools'' available to me to perform my responsibilities. Presently I 
am not able to evaluate in detail the challenges I might face in 
performing my duties, if confirmed.
    Question. If confirmed, what management action and timelines would 
you establish to address these problems?
    Answer. If confirmed, I would work with my new staff and the Under 
Secretary for Policy to identify and prioritize problems impeding 
performance of my responsibilities, and to developing timelines for 
their rectification.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
for the office to which you have been nominated?
    Answer. Under Secretary Flournoy has emphasized enhancement of her 
office's voice supporting the Secretary in the Planning, Programming, 
Budgeting and Execution System. If confirmed, I would seek to maximize 
my support to this and any other issues the Under Secretary for Policy 
has highlighted in support of the Secretary.
                         nuclear posture review
    Question. If confirmed what role will you play in the NPR?
    Answer. If confirmed, it is my understanding that I would develop 
guidance for the NPR, coordinate the review with my colleagues in the 
Departments of State and Energy, and help frame issues and strategic 
decisions for the Undersecretary for Policy and the Secretary. The 
Secretary has highlighted the group of issues covered in the NPR as 
being among the most important long-term challenges we face, and key to 
restoring confidence in our nuclear complex. The NPR will help define 
how to support the President's ultimate goal of eliminating nuclear 
weapons worldwide while ensuring that in the meantime the United States 
retains a nuclear deterrent capable of deterring any threat.
    Question. What steps will you take to ensure the Strategic Command, 
the military Services, and the National Nuclear Security Administration 
participate in the NPR process?
    Answer. It is my understanding that Strategic Command and the 
National Nuclear Security Administration (NNSA) are already formal 
members of the NPR analytical process, supporting examination of 
nuclear arsenal issues, force posture, and the international dynamics 
associated with possible changes in our strategic deterrent. Similarly, 
it is my understanding that the military services are involved at all 
levels of the NPR process. Such participation and leadership by NNSA, 
STRATCOM, and the military services are critical in ensuring that their 
perspectives, expertise, and equities are leveraged to their fullest 
extent as the NPR process unfolds.
                          space posture review
    Question. If confirmed what role will you play in the Space Posture 
Review?
    Answer. My understanding is that the Space Posture Review is a 
joint review to be conducted by the Secretary of Defense and the 
Director of National Intelligence, intended to clarify national 
security space policy and strategy of the United States. In this 
regard, if I am confirmed, I will support the Secretary and work with 
the Office of the Director of National Intelligence and others to 
ensure the review is responsive to the congressional requirement and 
inclusive of all stakeholders' views.
                             space programs
    Question. If confirmed what role will you play in establishing 
architectures for various space systems, such as communications and 
Overhead Persistent Infra-red (OPIR)?
    Answer. The capabilities provided from space, such as satellite 
communications and OPIR, are very important to our forces, the global 
economy, and the defense of our Nation. If confirmed, I expect to 
participate actively in a variety of DOD decisionmaking processes, 
including in strategy development and the Planning, Programming, 
Budgeting and Execution system in order to ensure architectures for our 
space systems are implemented in a manner to effectively achieve our 
national security objectives.
    Question. If confirmed what role will you play in developing a 
space protection strategy and improving space situational awareness?
    Answer. The protection of our national security space systems is 
very important to our military capabilities and the defense of our 
Nation. In this regard, if I am confirmed, I will work to ensure 
appropriate and effective strategies are in place to assure the 
missions provided by our space systems. The foundation of protection 
for our space capabilities is knowledge of the space environment 
provided by our space situational awareness systems.
                        space rules of the road
    Question. Over the course of the last several years there has been 
discussion about establishing international space rules of the road to 
deal with, mitigate, and reduce generation of space debris.
    What are your views on establishing space rules of the road?
    Answer. The safe and responsible use of space and preservation of 
the space environment are important issues for all nations, especially 
for space-faring nations. Encouraging responsible behavior through 
establishment of international norms, such as the Space Debris 
Mitigation Guidelines led by the United States and endorsed by the U.N. 
General Assembly, may be an excellent model. If confirmed, I will work 
closely with other Departments and Agencies to explore options to 
address generation of space debris and to promote the development of 
international norms for safe and responsible behavior in space.
                    international space cooperation
    Question. Given the concern about increase in space debris 
generated by the collision of the Iridium satellite and a 
nonfunctioning Russian satellite, and the need to improve the ability 
to forecast potential conjunctions, in your view is there an 
opportunity to cooperate with Russia in the area of space debris 
analysis and warning?
    Answer. The collision of the Iridium satellite and a nonfunctioning 
Russian satellite illustrates the increasing number of objects in space 
and the need to improve our space situational awareness capabilities. 
All space-faring nations, including Russia, have a shared interest in 
the area of space situational awareness to avoid collisions.
                          nuclear capabilities
    Question. Since the Air Force unknowingly flew nuclear weapons on a 
B-52 bomber on August 30, 2007, the Air Force has taken a number of 
significant steps to increase its attention, discipline and expertise 
on nuclear weapons management.
    What role if any will you play in ensuring that nuclear weapons are 
safe, secure and accounted for, and that the military services have 
established a high level of attention, discipline and conduct of 
operations with respect to nuclear weapons?
    Answer. If confirmed, I will work with the other OSD, Military 
Services and NNSA stakeholders and direct my staff to support both 
ongoing and new activities to ensure that the necessary focus and 
attention is given to all aspects of our nuclear force and the nuclear 
weapons enterprise, to include safety, security, and accounting.
    Question. The various reviews of the Air Force incident also 
exposed significant gaps in the OSD with respect to the attention and 
expertise to deal with nuclear weapons issues.
    What steps will you take to address the recommendations in the 
Welsh, Schlesinger and other reports that identify shortfalls in 
management of nuclear matters in the OSD?
    Answer. If confirmed, I will work with the Under Secretary of 
Defense for Policy, the Assistant to the Secretary for Nuclear, 
Chemical, and Biological matters, and other key stakeholders, to 
identify the best solutions that can effectively be implemented.
    Question. What steps will you take to ensure that there is 
sufficient technical expertise in the OSD with respect to nuclear 
weapons?
    Answer. If confirmed, I will press for inclusion of ``human 
capital'' solutions among the various proposals to address shortfalls 
in nuclear weapons-related activities. I will also reach out to 
institutions such as the NNSA National Security Laboratories, with 
which I have well-established relationships, in order to strengthen 
interagency relationships and enlist on-site support through their 
experts detailed to the OSD.
                       strategic nuclear programs
    Question. The NPR will establish among other things, nuclear force 
structure for the near term.
    Do you see any force structure decisions being made in advance of 
the NPR?
    Answer. I am not aware of any force structure decisions being 
considered for finalization in advance of the NPR.
                       ballistic missile defense
    Question. For many years the Department of Defense (DOD) and 
Congress have agreed on the principle that major weapon systems should 
be operationally effective, suitable, survivable, cost-effective, 
affordable, and should address a credible threat.
    Do you believe that any ballistic missile defense systems we deploy 
operationally must be operationally effective, suitable, survivable, 
cost-effective, affordable, and should address a credible threat?
    Answer. Yes.
    Question. Do you agree that our missile defense systems should be 
tested in a rigorous and operationally realistic manner in order to 
demonstrate, and provide confidence in, their capabilities, including 
through operational test and evaluation?
    Answer. My understanding is that testing of weapons systems is not 
among the responsibilities of the Office of the Undersecretary of 
Defense for Policy. As a general matter, I agree that testing of any 
weapon system should be done in a rigorous and operationally realistic 
manner.
               addressing current theater missile threats
    Question. Iran and North Korea currently possess hundreds of short- 
and medium-range ballistic missiles that can reach forward deployed 
U.S. forces and our allies. In an April 6 press briefing, Secretary 
Gates said that ``to better protect our forces and those of our allies 
in theater from ballistic missile attack, we will add $700 million to 
field more of our most capable theater missile defense systems, 
specifically the Terminal High Altitude Area Defense and the Standard 
Missile-3 programs.''
    What are your views on the need to increase the focus of our 
missile defense programs on protecting our forward-deployed forces, 
allies, and friends from existing missile threats?
    Answer. It is important to have an appropriate mix of short-, 
medium-, and long-range ballistic missile defense capabilities that are 
responsive to existing and emerging threats to our homeland, deployed 
forces, allies and other friendly nations.
               missile defense policy and strategy review
    Question. Section 234 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 (Public Law 110-417) requires a 
comprehensive review of U.S. ballistic missile defense policy and 
strategy, with a report due no later than January 31, 2010. The 
Assistant Secretary of Defense for Global Strategic Affairs will be 
responsible for missile defense policy, among other issues.
    If confirmed, what role would you expect to play in the required 
missile defense policy and strategy review?
    Answer. If confirmed, I would expect to be significantly involved 
in the missile defense policy and strategy review.
                missile defense cooperation with russia
    Question. After their recent summit meeting, President Obama and 
President Medvedev of Russia issued a joint statement which noted that 
they ``discussed new possibilities for mutual international cooperation 
in the field of missile defense, taking into account joint assessments 
of missile challenges and threats, aimed at enhancing the security of 
our countries, and that of our allies and partners.''
    Do you believe that U.S.-Russian cooperation on missile defense has 
the potential to enhance our mutual security, as well as that of our 
allies and partners?
    Answer. Cooperation with Russia on missile defense has long been 
desired. If confirmed, I intend to make this a priority. Having the 
Russians on board with missile defense could not only help ease 
tensions in the region, but potentially also lead to the creation of a 
better system with a larger protective umbrella.
    Question. Do you believe it would be beneficial to conduct ``joint 
assessments of missile challenges and threats'' with Russia, 
particularly concerning Iran's missile programs?
    Answer. I have not been briefed on this aspect of the matter and 
will consider it carefully if confirmed.
    Question. Do you believe that U.S.-Russian missile defense 
cooperation could send an important signal to Iran that the United 
States and Russia are unified in their determination to reduce the 
risks of Iran's nuclear and missile programs?
    Answer. Yes.
              proposed european missile defense deployment
    Question. The Obama administration is reviewing the proposed 
deployment of a U.S. missile defense system in Europe. At her 
confirmation hearing, Under Secretary Flournoy said that reviewing this 
issue would be a good topic for the Quadrennial Defense Review.
    If confirmed, what role would you expect to play in the 
administration's review of the proposed European missile defense 
deployment?
    Answer. If confirmed, I expect to be significantly involved in the 
missile defense policy and strategy review.
    Question. Do you agree that such a review should consider a variety 
of options and alternatives to determine the best path forward to 
enhance our security, as well as that of our allies and partners?
    Answer. Yes.
    Question. Do you believe that such a review should also consider 
the potential for a cooperative approach with Russia on regional 
missile defense, including the sharing of Russian missile early warning 
information from the Gabala radar in Azerbaijan and the Armavir radar 
under construction in southern Russia?
    Answer. Yes, I believe that the review of U.S. missile defense in 
Europe should consider options for cooperation with Russia, including 
U.S. and Russian proposals made in recent years, as well as new 
proposals.
     north atlantic treaty organization (nato) and missile defense
    Question. The April 4, 2009, NATO Summit declaration from Kehl and 
Strasbourg states that ``we judge that missile threats should be 
addressed in a prioritized manner that includes consideration of the 
level of the imminence of the threat and the level of acceptable 
risk.''
    Do you agree with this statement of NATO's approach to missile 
defense?
    Answer. Yes. This statement was endorsed by all NATO members 
including the U.S.
    Question. The proposed U.S. missile defense deployment in Europe 
would not defend all of NATO Europe, and would not protect those 
portions of NATO Europe that are currently within range of Iranian 
ballistic missiles.
    Based on the central NATO principle of the indivisibility of Allied 
security, do you believe that any future NATO territorial missile 
defense system should provide protection for all NATO allies, and not 
leave some allies unprotected?
    Answer. The principle of the indivisibility of Allied security is 
longstanding and also applies to ballistic missile attack against 
member states. If confirmed, I expect to contribute to our ongoing work 
with NATO allies on alternatives to provide protection to member 
states.
                    chemical and biological defense
    Question. One of the areas under the Assistant Secretary of Defense 
for Global Strategic Affairs is the Chemical and Biological Defense 
Program of the DOD.
    What do you believe are the principal challenges in chemical and 
biological defense, and what would be your priorities for the DOD 
Chemical and Biological Defense Program?
    Answer. My understanding is that the Office of the Assistant to the 
Secretary of Defense for Nuclear, Chemical and Biological matters 
manages the Chemical Biological Defense Program. If confirmed, I would 
be responsible for policy oversight of the program. I have not been 
briefed yet on the details of this program, but I understand that key 
issues include developing defenses against nontraditional chemical 
agents, accelerating the ability to conduct CBRN detection and 
forensics, and working toward the development of vaccines and other 
medical countermeasures to protect our personnel against multiple 
threats.
                       chemical demilitarization
    Question. DOD Directive 5160.05E states the DOD policy that ``the 
DOD shall be in full compliance'' with the Chemical Weapons Convention 
(CWC) and the Biological Warfare Convention (BWC). In 2006, the 
Department announced that the United States would not meet even the 
extended deadline of April 2012 for destruction of its chemical weapons 
stockpile, as required under the CWC.
    Do you agree that the DOD and the United States Government should 
be in full compliance with the terms and obligations of the CWC and the 
BWC, including the deadline for destruction of the U.S. chemical 
weapons stockpile under the CWC?
    Answer. I believe that the United States should meet its treaty 
commitments, and if that is not possible to state so clearly and come 
into compliance expeditiously. Although I have yet to examine this 
issue in detail, I understand that in 2006, the United States informed 
the Organization for the Prohibition of Chemical Weapons that it would 
not meet the 2012 deadline, but would accelerate the destruction effort 
as much as practical. To date, I understand that the Department is on 
track to destroy 90 percent of the US stockpile by the CWC deadline.
    Question. If confirmed, will you work to ensure that the Department 
takes steps needed to minimize the time to complete destruction of the 
U.S. chemical weapons stockpile, without sacrificing safety or 
security, and that the Department requests the resources necessary to 
complete destruction as close to April 2012 as practicable?
    Answer. Yes.
                          counter-wmd efforts
    Question. One of the issue areas proposed under the position for 
which you have been nominated is the DOD efforts to counter WMD, 
meaning nuclear, biological, and chemical weapons.
    What do you believe are the principal challenges in countering WMD, 
and what are your priorities for DOD efforts to counter WMD?
    Answer. WMD in the hands of hostile states and terrorists represent 
one of the greatest security challenges we face. If I am confirmed, I 
will seek to increase barriers to WMD proliferation, develop 
integrated, layered WMD defenses, improve DOD abilities to hold 
emergent WMD threats at risk, and prepare for complex WMD 
contingencies.
    Question. If confirmed, what role do you expect to play in the 
creation of policy for, and oversight of, DOD programs to counter WMD?
    Answer. If confirmed, I would support the USD(P) in overseeing 
development of policies governing all DOD programs to counter WMD. I 
would engage other senior officials in DOD, as well as officials in the 
Departments of Homeland Security, Energy, and Department of State, and 
to consult fully with Congress in executing this responsibility.
                   proliferation security initiative
    Question. The Proliferation Security Initiative (PSI) is an 
international effort to identify and interdict WMD and related 
materials.
    If confirmed would you recommend that the PSI program continue and 
if so do you believe that it should be modified in any way?
    Answer. If confirmed, I would recommend that PSI should continue 
and I would work with my staff to turn PSI into a ``durable 
international institution'' as President Obama called for during his 
April 5, 2009, speech in Prague.
    Question. The absence of funding specifically identified for the 
PSI program has made it difficult for the Department and the Congress 
to provide appropriate oversight.
    If confirmed would seek to establish a separate budget account for 
PSI? If not, why not?
    Answer. If confirmed, I would review PSI's current funding in order 
to determine if a separate budget account is needed for PSI to 
accomplish its goals.
                  cooperative threat reduction program
    Question. If confirmed what will your role be in implementing and 
overseeing the Cooperative Threat Reduction (CTR) Program?
    Answer. If confirmed, I will lead development of policy guidance 
for CTR program objectives, scope and direction, as well as providing 
strategic vision for long range planning. My understanding is that the 
ASD(GSA) works closely with the Defense Threat Reduction Agency and the 
Assistant to the Secretary of Defense for Nuclear, Chemical, and 
Biological matters to ensure proper execution of policy guidance.
    Question. If confirmed what changes, if any, would you recommend to 
the CTR program, including changes in legislative authorities, 
programs, or funding?
    Answer. If confirmed, I would review carefully the several studies 
of CTR activities conducted in the past year. If confirmed, I will 
consider these studies' findings, and work with CTR stakeholders and 
Congress to improve upon existing CTR successes and look for ways to 
better meet the WMD proliferation challenges of the 21st century.
                     comprehensive test ban treaty
    Question. If confirmed what role will you play in any efforts to 
obtain Senate ratification of the Comprehensive Test Ban Treaty?
    Answer. If confirmed, I would support the USD(P), as the lead DOD 
policy point of contact responsible for the Comprehensive Test Ban 
Treaty. In this role, I would support the administration in any of its 
efforts to obtain Senate ratification of the Comprehensive Test Ban 
Treaty. I would expect to engage other senior officials in DOD, as well 
as officials in the Departments of Energy and State.
            follow-on to the strategic arms reduction treaty
    Question. If confirmed, what role will you play in the 
administration's negotiations and efforts to agree upon a new strategic 
arms reduction treaty?
    Answer. If confirmed, I will support the Secretary of Defense's 
Representative to follow-on treaty negotiations, personally and through 
my staff.
                                 russia
    Question. What areas of opportunity and cooperation do you believe 
the U.S. could take to improve overall U.S. Russian relationships?
    Answer. DOD's involvement in Russian relations generally is the 
responsibility of the Assistant Secretary of Defense for International 
Security Affairs (ASD(ISA)). If confirmed, I would expect to contribute 
to policy development, drawing on the several areas of non-
proliferation and nuclear security cooperation that have developed 
between DOD and various Russian Federation ministries.
    Question. Would you support an expansion of U.S. and Russian 
military-to-military relationships?
    Answer. My understanding is that the office of the ASD(GSA) does 
not have significant involvement in military-to-military relations with 
the Russian Federation, aside from any nonproliferation, nuclear 
security, or arms control contacts we might have with the Russian 
Ministry of Defense.
    Question. What role do you expect to play, if confirmed, on these 
issues?
    Answer. If confirmed, I would expect to support the ASD(ISA) in any 
way possible.
                             cyber security
    Question. What are the main policy challenges facing the DOD in the 
area of cyber security, both within the Department and with respect to 
the Federal Government as a whole?
    Answer. The DOD relies upon global data and telecommunication 
networks, defense industries, and other critical infrastructure, much 
of which is owned and operated by the commercial sector, to conduct 
full spectrum land, sea, air, and space operations. I understand that 
the National Security Council's 60-Day Cyber Review, directed by the 
President and assisted by the DOD will soon prioritize cyber challenges 
and propose a coordinated way forward for the Nation.
    Question. What should the DOD's role be in defending the Nation 
against cyber threats? Should the Department play the lead role in 
stopping attacks from abroad through cyberspace, just as the Department 
defends the Nation from attack by missiles, aircraft, or ships?
    Answer. My understanding is that the DOD has been focused on 
securing its own networks, which are crucial to the success of military 
and other operations, as well as providing information assistance to 
other departments and agencies when needed. If confirmed, I will 
involve myself promptly in the broader debate on DOD's role in this 
area.
    Question. What should be the role of law enforcement and the 
Department of Homeland Security in directing operations to defend the 
Nation in cyberspace?
    Answer. My understanding is that the Department of Homeland 
Security plays a leading role in defending the Nation against cyber 
attacks. I have been told that the Cyber Security Enhancement Act gives 
the Department of Homeland Security additional tools to combat 
cybercrime. Federal, state, and local law enforcement agencies in 
partnership with the Department of Homeland Security play an important 
role in the defense, investigation, and prosecution of cyber criminals 
and cyber terrorists. However, to achieve a confident national 
cybersecurity posture, all Federal departments need to collaborate more 
closely and better involve the private sector in their efforts.
    Question. What organizational and operational construct would allow 
multiple departments and agencies to mount an effective, unified 
defense of the Nation's cyber networks and resources?
    Answer. My understanding is that the National Security Council's 
60-Day Cyber Review, directed by the President and assisted by the DOD 
is specifically reviewing organizational and operational constructs to 
improve interagency unified defense.
    Question. In your view, is there a need for a strategy and doctrine 
for deterring foreign adversaries from engaging in attacks on the 
United States through cyberspace, just as there is a nuclear deterrence 
strategy and doctrine based on the threat of retaliation?
    Answer. My understanding is that there may be a need to adapt our 
defense and military strategies to ensure that we preserve the ability 
to protect our national security. These concepts can be incorporated 
into our general deterrence strategies.
    Question. Should the United States have the ability, and announce 
the intention, to undertake offensive operations in cyberspace, through 
the DOD, in retaliation against, or to defeat, foreign aggression in 
cyberspace? Does such doctrine exist today, in your view?
    Answer. All nations have the right of self-defense. Military 
doctrine is adaptive and has recognized the growing importance of cyber 
capabilities. If confirmed, I will consider this issue carefully and 
work with Congress and key stakeholders on potential improvements.
    Question. Defending cyberspace implies the need for conducting 
surveillance in cyberspace to achieve the ability to warn of threats 
and to characterize them.
    Can surveillance in cyberspace be conducted effectively without 
impinging on the privacy interests of the American people?
    Answer. Any surveillance activity conduct by or on behalf of the 
U.S. government must be conducted in accordance with applicable 
statutes and regulations designed to protect the privacy of the 
American people.
    Question. In your view, will it be necessary to publicly disclose 
more information about the government's plans and methods for 
conducting surveillance in cyberspace in order to explain how civil 
liberties and privacy will be protected?
    Answer. It is important for the government to be able to explain 
its tactics, techniques, and procedures with enough context to ensure 
public confidence that activities are being undertaken appropriately, 
and for worthwhile purposes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Global Strategic Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Thune
                fiscal year 2010 defense budget proposal
    1. Senator Thune. Dr. Nacht, on April 6, Secretary Gates announced 
significant changes in the fiscal year 2010 defense budget proposal. 
Some of the most significant changes deal with canceling some programs, 
prematurely ending production of others, or putting other programs on 
hold--as is the case for the CSAR-X, the F-22, and the Next Generation 
Bomber, respectively. This announcement came 2 weeks prior to the 
Department announcing the start of the 2010 Quadrennial Defense Review 
(QDR) and Nuclear Posture Review (NPR). As future policy advisors to 
the Secretary, I would like to get your opinions on whether or not 
these most recent budget decisions were indeed informed policy 
decisions. Before making such significant changes, wouldn't these 
important changes benefit from the knowledge gained by the QDR and the 
NPR?
    Dr. Nacht. Yes, Secretary Gates' most recent budget decisions were 
informed policy decisions. He reached these decisions after 
consultations with the President, and with the military and civilian 
leadership of the Department of Defense (DOD). On his Defense Budget 
Recommendation Statement on 6 April 2009, Secretary Gates described 
these decisions as the product of ``a holistic assessment of 
capabilities, requirements, risks and needs for the purpose of shifting 
the department in a different strategic direction.''
    Secretary Gates announced significant changes in the fiscal year 10 
defense budget proposal and he wants that the QDR and the NPR inform 
programs affected by these decisions. Some of the programs were halted 
or delayed and others cancelled to allow the Department to reassess the 
needs that these programs are supposed to meet. The Department will 
consider the outcome of major defense reviews and arms control 
negotiations in this process. Clear examples of this approach are the 
three programs you addressed in this question.
    First, to sustain U.S. air superiority, Secretary Gates committed 
to build a fifth generation of tactical fighters capability that can be 
produced in quantity at sustainable cost. He recommended increasing 
investment on the F-35 Joint Strike Fighter and ending production of 
the F-22 fighter at 187. Secondly, he placed the Next Generation Bomber 
on hold to first assess the requirements, develop a better 
understanding of the technology and of other capabilities we might have 
for this mission, and to incorporate the outcome of the QDR, the NPR 
and the Strategic Arms Reduction Treaty (START) Follow-on negotiations. 
Finally, Secretary Gates recommended terminating the Air Force Combat 
and Rescue X (CSAR-X) helicopter program. This program has a history of 
acquisition problems and is another example of single-service solution 
with a single-purpose aircraft for an important mission affecting all 
Services. The Department will reassess the requirements and develop a 
more sustainable approach.

         post-start negotiations and the next generation bomber
    2. Senator Thune. Dr. Nacht, as an experienced nuclear arms 
reduction negotiator, you no doubt have unique insight into what will 
be involved in negotiating a Post-START arms treaty. How long do you 
predict the Post-START arms treaty negotiation process will take?
    Dr. Nacht. Everyone recognizes that the negotiation of a START 
Follow-on Treaty will be difficult. The negotiations have started and 
thus far have been business like. The Obama administration will make 
every effort to conclude the Treaty before the expiration of the START 
Treaty in December 2009.

    3. Senator Thune. Dr. Nacht, do you think the Senate will have 
enough time to fully consider and ratify the follow-on treaty by 
December 5, 2009, when the current START treaty expires? If not, how 
long do you think it will be before a follow-on START treaty can be 
ratified by the Senate?
    Dr. Nacht. We hope to conclude a START Follow-on Treaty by December 
2009. There are options we might pursue if this does not prove 
possible. We hope that the Senate will promptly ratify a START Follow-
on Treaty. The procedure and times lines for providing Senate advice 
and consent are a matter for the Senate, not the executive branch.

    4. Senator Thune. Dr. Nacht, one of the reasons Secretary Gates 
gave for delaying development of the Next Generation Bomber is to 
ensure the program will be informed by the outcome of the Post-START 
arms control negotiations. One can only assume the Secretary is 
concerned that the Post-START may restrict the Next Generation Bomber 
to a conventional-only role, negating the requirement to design it as a 
nuclear capable platform. In your opinion, what role do bombers play as 
a nuclear deterrent?
    Dr. Nacht. Currently, the United States maintains a triad of 
strategic nuclear forces that includes land-based intercontinental 
ballistic missiles (ICBMs), nuclear-powered ballistic missile 
submarines (SSBNs) armed with submarine-launched ballistic missiles 
(SLBMs), and long-range bombers able to deliver both stand-off cruise 
missiles and gravity bombs. Each leg of the triad brings unique 
capabilities. Together, the legs of the nuclear triad combine to 
provide operational flexibility and help ensure that an adversary 
cannot pose a threat that could potentially negate the entire force.
    Secretary Gates stated that, ``We will not pursue a development 
program for a follow-on Air Force bomber until we have a better 
understanding of the need, the requirement and the technology. We will 
examine all of our strategic requirements during the QDR, the NPR, and 
in light of post-START arms control negotiations.'' He did not link the 
funding of the new bomber to the outcome of the negotiations. As 
Secretary of the Air Force Michael Donley and Air Force Chief of Staff 
General Norton Schwartz have both stated, ``We are also modernizing our 
existing bomber force to increase its effectiveness and survivability 
against emerging threats, while meeting the requirements of today's 
Joint Force Commanders.'' I agree with this policy.
    Any decisions on the future of the bomber force in the nuclear 
deterrent role will be informed by the NPR.

    5. Senator Thune. Dr. Nacht, since ground-based and submarine-based 
ballistic missiles are not overtly visible deterrents, is it important 
to have a credible, nuclear capable bomber force that can be used as a 
visible sign of our National will?
    Dr. Nacht. Everyone recognizes the need to maintain an effective 
bomber force. As Secretary of the Air Force Michael Donley and General 
Norton A. Schwartz have recently stated, ``We are also modernizing our 
existing bomber force to increase its effectiveness and survivability 
against emerging threats, while meeting the requirements of today's 
Joint Force Commanders.'' The U.S. Air Force is in the process of 
setting up the Global Strike Command to assure that we have an 
effective nuclear capable bomber force.
    The United States maintains a triad of strategic nuclear forces 
that includes land-based ICBMs, SSBNs armed with SLBMs, and long-range 
bombers able to deliver both stand-off cruise missiles and gravity 
bombs. Each leg of the triad brings unique capabilities. Together, the 
legs of the nuclear triad combine to provide operational flexibility 
and help ensure that an adversary cannot pose a threat that could 
potentially negate the entire force.
    The U.S. strategic bomber force, along with U.S. and the North 
Atlantic Treaty Organization dual-capable aircraft, provides a visible 
deterrence tool that can be used to signal U.S. and allied resolve in 
an escalating or continuing crisis.
    The overall U.S. nuclear posture, including the issue of the 
nuclear role bomber force, will be reviewed as part of the NPR, and any 
changes to the current policy will be informed by the review.

                 joint task force guantanamo detainees
    6. Senator Thune. Dr. Nacht, I would like to get your opinion on 
the increasing burden of proof our military forces face when capturing 
and prosecuting terrorists. With some of the recent decisions being 
made, it appears the burden of proof that a detainee constitutes a 
threat to the U.S. has increased to a level that is beyond our 
servicemember's capability to meet. In other words, the review process 
increasingly requires levels of evidence and chain of evidence, such 
that our military is ill equipped, not properly trained, and, in my 
opinion, should not be required to obtain while operating on the 
battlefield. As the Assistant Secretary of Defense for Global Security 
Affairs, one of your responsibilities will be detainee affairs. How 
should the DOD properly balance the need for battlefield commanders to 
detain hostile individuals with the increasing requirement to validate 
their detention with an ever-increasing amount of substantiated 
evidence?
    Dr. Nacht. First, I would like to clarify that the office of 
Detainee Affairs has been transitioned into the office of Detainee 
Policy. Moreover, the office of Detainee Policy is no longer part of my 
office, Global Strategic Affairs.
    To respond to your question, U.S. forces conduct detention 
operations in accordance with the law of war and are trained to be able 
to determine which individuals may be lawfully detained. However, they 
are not trained as criminal investigators, and the traditional 
battlefield is not conducive to classic chain-of-evidence and similar 
requirements. Imposing such requirements in a battlefield setting would 
be problematic. Although detainees held at Guantanamo Bay have the 
right to contest the basis for their detentions through petitions for 
the writ of habeas corpus, the Federal Courts have also affirmed the 
lawfulness of detaining those who engage in hostile activities against 
U.S. and allied forces under the law of war.

    7. Senator Thune. Dr. Nacht, the administration has stated that it 
will close the Guantanamo detention facility within a year. What are 
your thoughts on how the administration should close Guantanamo?
    Dr. Nacht. Although this topic is not under my purview as Assistant 
Secretary of Defense for Global Strategic Affairs, my colleagues who 
work this issue inform me that the President's Executive Order, signed 
on January 22, 2009, states that the detention facilities at Guantanamo 
shall be closed as soon as practicable, and no later than one year from 
the date of this order. The Executive Order also directs a review of 
the status of each individual currently detained at Guantanamo and a 
determination as to the appropriate disposition for each individual. 
DOD is fully participating in this Attorney General-coordinated review, 
and it would be premature to comment on how Guantanamo should be closed 
before the review is completed.

    8. Senator Thune. Dr. Nacht, what plans would you propose in terms 
of transfer of detainees to the U.S.?
    Dr. Nacht. Although this topic is not under my purview as Assistant 
Secretary of Defense for Global Strategic Affairs, my colleagues who 
work this issue inform me that at this time, there are no court orders 
to transfer detainees to the United States. DOD is fully participating 
in the Attorney General-coordinated review of all 240 detainees 
currently being detained by DOD at Guantanamo, and it would be 
premature to decide on such a plan prior to the completion of the 
review.

    9. Senator Thune. Dr. Nacht, how will you take into account that 
the Senate has passed a resolution by a vote of 94 to 3 that Guantanamo 
detainees, including senior members of al Qaeda, should not be 
transferred stateside into facilities in American communities and 
neighborhoods?
    Dr. Nacht. Although this topic is not under my purview as Assistant 
Secretary of Defense for Global Strategic Affairs, my colleagues who 
work this issue inform me that the President's Executive order, which 
was signed on January 22, 2009, directed a review of the status of each 
individual currently detained at Guantanamo and a determination as to 
the appropriate disposition for each individual. The review is 
identifying and considering all legal, logistical, and security issues 
relating to the potential transfer of individuals currently detained at 
Guantanamo to facilities within the United States. DOD is fully 
participating in this Attorney General-coordinated review.

                importance of missile defense third site
    10. Senator Thune. Dr. Nacht, based on the changes to the ballistic 
missile defense program Secretary Gates recently announced, coupled 
with statements the administration has previously made, it appears that 
President Obama has no intention to continue with plans to field a 
third ballistic missile defense site in Eastern Europe. As the 
Assistant Secretary of Defense for Global Security Affairs, your office 
will be responsible for building the capability of partners and allies, 
coalition affairs, as well as security cooperation. How will the 
decision to delay, and likely cancel, the third ballistic missile 
defense site affect your ability to partner with other nation's defense 
agencies?
    Dr. Nacht. The administration currently is reviewing ballistic 
missile defense policies, plans and strategies. No decision has been 
made on whether to proceed, delay or cancel the ``third site'' in 
Europe. Any such decision will be made in the context of pursuing 
missile defenses that are effective and well proven.
    We will consult with our allies to ensure they are fully aware of 
and understand the basis for any decision on the third site. Therefore, 
we expect to continue to enjoy close relations and full cooperation 
with other nations' defense agencies.

    11. Senator Thune. Dr. Nacht, won't our allies and coalition 
partners be less likely to enter into arrangements with us for fear we 
will back out based on the political circumstances back home?
    Dr. Nacht. The United States is currently reviewing its BMD 
policies and strategies, including options for defending against the 
Iranian ballistic missile threat. Initial results will be available 
later this year. Regardless of the option selected to address the 
Iranian threat, the United States will move forward with missile 
defenses and continue work with our allies where our common strategic 
interests are best served.
                                 ______
                                 
    [The nomination reference of Dr. Michael Nacht follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael Nacht of California, to be an Assistant Secretary of 
Defense, vice Joseph A. Benkert.
                                 ______
                                 
    [The biographical sketch of Dr. Michael Nacht, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Dr. Michael Nacht
    Michael Nacht is currently Professor of Public Policy and former 
Aaron Wildavsky Dean at the Goldman School of Public Policy at the 
University of California-Berkeley. Nacht served a 3-year term as a 
member of the U.S. Department of Defense Threat Reduction Advisory 
Committee, for which he chaired panels on counter terrorism and counter 
proliferation of weapons of mass destruction, reporting to the Deputy 
Secretary of Defense. He continues to consult for Sandia National 
Laboratories and Lawrence Livermore National Laboratory. From 1994-
1997, Nacht was assistant director for Strategic and Eurasian Affairs 
at the Arms Control and Disarmament Agency, leading its work on nuclear 
arms reduction negotiations with Russia and initiating nuclear arms 
control talks with China. He participated in five summit meetings with 
President Clinton--four with Russian President Boris Yeltsin and one 
with Chinese President Jiang Zemin. Nacht has testified before Congress 
on subjects ranging from arms control to the supply and demand for 
scientists in the workplace. Nacht earned his B.S. in aeronautics and 
astronautics at New York University and began his career working on 
missile aerodynamics for the National Aeronautics and Space 
Administration before earning a Ph.D. in political science at Columbia 
University.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Michael 
Nacht in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Leonard Nacht.

    2. Position to which nominated:
    Assistant Secretary of Defense for Global Strategic Affairs.

    3. Date of nomination:
    April 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 1, 1942; New York, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Marjorie Jo (Seltzer) Nacht.

    7. Names and ages of children:
    David Allen Nacht, 43.
    Alexander Carey Nacht, 39.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Christopher Columbus High School, New York City, NY; Attended: 
1956-1959; High School Diploma, 1959.
    New York University, New York City, NY; Attended: 1959-1963; BS 
Aeronautics and Astronautics, 1963.
    Case Western Reserve University, Cleveland, OH; Attended: 1963-
1966; MS, Statistics, 1966.
    New York University, New York City, NY; Attended: 1966-1969; MS 
Operations Research, 1969.
    New School for Social Research; Attended: 1967-1970; MA Political 
Science, 1970.
    Columbia University, New York City, NY; Attended: 1970-1973; Ph.D. 
Political Science, 1973.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Professor of Public Policy, Goldman School of Public Policy, 
University of California, Berkeley, Berkeley, CA, July 1998-Present.
    Dean, Goldman School of Public Policy, University of California, 
Berkeley, Berkeley, CA, July 1998-June 2008.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    2002-2004; Chair, Panel on Counterproliferation, Threat Reduction 
Advisory Committee, Defense Threat Reduction Agency.
    2001-2002; Chair, Panel on Counterterrorism, Threat Reduction 
Advisory Committee, Defense Threat Reduction Agency.
    1994-1997; Assistant Director for Strategic and Eurasian Affairs, 
U.S. Arms Control and Disarmament Agency (U.S. Senate Confirmed July 
1994).
    1963-1966; Aerospace Engineer, NASA Lewis (now John Glenn) Research 
Center, Cleveland, OH.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Goldman School of Public Policy, University of California, 
Berkeley, Professor (1998-Present), Dean (1998-2008).
    Sandia National Laboratories, Consultant.
    Lawrence Livermore National Laboratory, Consultant.
    Corporate Scenes, Inc., Consultant.
    Center for Global Partnership, Consultant.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See Question 11 above. In addition, I hold the following 
memberships:

          Council on Foreign Relations (New York), Member.
          International Institute for Strategic Studies (London), 
        Member.
          Cosmos Club (Washington, DC), Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    09/08, $2,300, Obama, Barack.
    06/07, $1,300, Obama, Barack.
    06/07, $1,000, Obama, Barack.
    05/07, $500, Democratic Congressional Campaign Committee, 2008.
    05/07, $2,300, David Nacht for Congress, 2007.
    04/07, $2,300, David Nacht for Congress, 2007.
    09/07, ($400), David Nacht for Congress, 2007.
    09/07, ($2,300), David Nacht for Congress, 2007.
    03/06, $1,000, Miller, Harris.
    08/04, $1,000, Kerry, John.
    07/04, $1,000, Kerry, John.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    2007, Fellow, California Council on Science and Technology.
    2002, Listed, Who's Who in America.
    1997, Distinguished Honor Award, U.S. Arms Control and Disarmament 
Agency.
    1983, Traveling Fellowship, International Research and Exchange 
Board.
    1972, President's Fellow, Columbia University.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    See attached list of publications.
    [Nominee responded and the information is retained in the 
committee's executive files.]
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Speech on American foreign policy delivered at the University of 
Sydney, Australia, and December 2007. A published version was printed 
in the Sydney Morning Herald, mid-December 2007. See attached speech.
    [Nominee responded and the information is retained in the 
committee's executive files.]
    Prepared Statement Before the Subcommittee on International 
Operations of the Committee on Foreign Relations of the U.S. Senate on 
the Future of the Arms Control And Disarmament Agency, May 11, 1995.
    Prepared Statement Before the Subcommittee on Asian and Pacific 
Affairs of the Committee on Foreign Affairs of the U.S. House of 
Representatives, July 1991.
    Prepared Statement on ``Scientists and Engineers: Supply and 
Demand,'' Hearings Before the Science Policy Task Force of the 
Committee on Science and Technology. House of Representatives, 99th 
Cong., 2nd Sess., July 1985.
    Prepared Statement on ``Security Relations,'' Hearings Before the 
Subcommittee on Asian and Pacific Affairs and on International Economic 
Policy and Trade of the Committee on Foreign Affairs. House of 
Representatives, 98th Cong., 2nd Sess., May-June 1984.
    Prepared Statement on ``Japanese Defense Policy,'' Hearings Before 
the Committee on Foreign Affairs. House of Representatives, 
Subcommittee on Asian and Pacific Affairs. 97th Cong., 2nd Sess., March 
1982.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Michael Nacht.
    This 27th day of April, 2009.

    [The nomination of Dr. Michael Nacht was reported to the 
Senate by Chairman Levin on May 6, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 7, 2009.]
                              ----------                              

    [Prepared questions submitted to Wallace C. Gregson by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. There is now a generation of military leaders 
who are experienced with operating in a coordinated and joint, multi-
service environment. At this time, I do not see the need to change the 
provisions of this legislation.
                                 duties
    Question. Department of Defense (DOD) Directive 5111.17 assigns the 
responsibilities, functions, relationships, and authorities of the 
Assistant Secretary of Defense for Asian and Pacific Security Affairs 
(ASD(APSA)). The directive establishes ASD(APSA) as the principal 
advisor to the Under Secretary of Defense for Policy and the Secretary 
of Defense on various matters relating to the Asian and Pacific 
regions, their governments, and defense establishments.
    What is your understanding of the duties and functions of the 
ASD(APSA)? Will they differ in any way from those described in DOD 
Directive 5111.17?
    Answer. The ASD(APSA) is the principal advisor to the Under 
Secretary of Defense for Policy (USD(P)) and the Secretary of Defense 
on international security strategy and policy on issues of DOD interest 
that relate to the Nations and international organizations of the Asian 
and Pacific regions, their governments, and defense establishments and 
for oversight of security cooperation programs, including Foreign 
Military Sales, in these regions.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Throughout my 37-year career in the U.S. Marine Corps, I 
had the privilege of serving the United States of America throughout 
the Asia-Pacific region along side my fellow marines, soldiers, airmen, 
sailors, coast guardsmen, and civilians. From 2003 to 2005 I served as 
Commanding General of the Marine Corps Forces Pacific and Marine Corps 
Forces Central Command, where I led and managed over 70,000 marines and 
sailors in the Middle East, Afghanistan, East Africa, Asia, and the 
United States. From 2001 to 2003 I served as Commanding General of all 
Marine Corps forces in Japan. Prior to my time in Japan I was Director 
of Asia-Pacific Policy in the Office of the Secretary of Defense from 
1998 to 2000. I am a member of the Council on Foreign Relations; the 
Pacific Council on International Policy; and the International 
Institute for Strategic Studies.
                             relationships
    Question. If confirmed, what will be your relationship with: the 
Secretary of Defense; the Deputy Secretary of Defense; The Under 
Secretary of Defense for Policy; the Under Secretary of Defense for 
Intelligence; the Chairman of the Joint Chiefs of Staff; Commander, 
U.S. Pacific Command; Commander, U.S. Central Command; Commander, U.S. 
Special Operations Command; other combatant commanders; the Service 
Secretaries and Service Chiefs; the Assistant Secretary of Defense for 
International Security Affairs; the Assistant Secretary of Defense for 
Homeland Defense; the Assistant Secretary of Defense for Global 
Strategic Affairs; and the Assistant Secretary of Defense for SO/LIC & 
Interdependent Capabilities?
    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I expect to develop and maintain a close working relationship 
with under secretaries and assistant secretaries across the Department, 
the General Counsel of the DOD, the Secretaries of the Military 
Departments, the Chairman and Vice Chairman of the Joint Chiefs of 
Staff, and with combatant commanders. As appropriate, if confirmed, I 
would also work closely with and coordinate with the other Assistant 
Secretaries of Defense within OSD Policy. Examples of this coordination 
include working with the Assistant Secretary of Defense for 
International Security Affairs on the role of the North Atlantic Treaty 
Organization (NATO) in Afghanistan; the Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict and Interdependent 
Capabilities on Counterterrorism and Pakistan; the Assistant Secretary 
of Defense for Homeland Defense and Americas Security Affairs on 
humanitarian assistance and disaster relief efforts in Asia; and the 
Assistant Secretary of Defense for Global Strategic Affairs on 
counternarcotics, nuclear and security assistance matters.
                       challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next ASD(APSA)?
    Answer. I believe there are six major challenges in Asia and the 
Pacific that the next ASD(APSA) will face. First, the Governments of 
Afghanistan and Pakistan both need support to counter and defeat al 
Qaeda and its extremist allies. Second, North Korea's conventional 
military threat, weapons of mass destruction (WMD) and proliferation 
activities are a threat to regional security. Third, China's military 
buildup may be tipping the stability balance in the Taiwan Strait and 
poses an unknown risk to the region at large. Fourth, we must remain 
vigilant as we continue alliance transformation and strengthening of 
our important security alliances with Japan and South Korea. Fifth, a 
conventional or even nuclear confrontation between Pakistan and India 
would be a disaster. Finally, in Southeast Asia there are challenges in 
sustaining defense reforms and democratic consolidation, as well 
maintaining effective counter-terrorism cooperation.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Strategies for dealing with many of the challenges are in 
place at the Pentagon, but I am informed that since January, the 
administration has been conducting a number of major strategy reviews, 
particularly the recently completed Afghanistan-Pakistan strategic 
review. These reviews are being conducted in close coordination with 
the interagency community and with consultations with Congress and our 
international partners. If confirmed, I will analyze current 
strategies, review the results of the recent strategy reviews, and 
participate in ongoing policy reviews, such as the Quadrennial Defense 
Review (QDR).
    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the ASD(APSA)?
    Answer. Strategies for dealing with these challenges are largely in 
place at the Pentagon, among the U.S. interagency, and in agreements 
with our partners in the region. If confirmed, I see the challenge as 
principally one of careful, sustained execution of these strategies 
rather than devising new initiatives.
    In Afghanistan, my principal focus would be on supporting coalition 
efforts to train and equip Afghan security forces, as well as 
integrating both the military and governance elements of the 
counterinsurgency. This also includes working with Pakistan to 
eliminate safehavens in the Federally Administered Tribal Areas.
    Regarding North Korea, I would work with the Department of State 
and regional partners to press North Korea to meet its commitments--
including denuclearization--as agreed to during the Six-Party Talks, 
while maintaining the capability to deter potential North Korea 
military threats and countering proliferation activities.
    With regard to China, the strategy is one of careful, measured 
military engagement with the Government of China and the Peoples 
Liberation Army, pressing for transparency while also sustaining our 
military capabilities to fulfill our defense commitments in the region.
    In order to sustain the realignment and transformation processes 
already underway, we need to review progress constantly and resolve 
challenges in the bilateral relations with both Tokyo and Seoul: these 
are complex, multi-stage projects that require sustained political and 
budgetary support on both sides of the Pacific.
    In South Asia, I would work with the Department of State to promote 
confidence building measures between India and Pakistan while 
continuing to develop our bilateral security relations with both 
nations.
    Finally, in Southeast Asia I would sustain and expand our relations 
with regional militaries to promote regional security, defense reforms 
and respect for human rights.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
humanitarian assistance operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military? If yes, would you advocate for expanding U.S. 
military-to-military engagement? If not, why not?
    Answer. If confirmed, I will support continued U.S. military-to-
military engagement. I believe the current and emerging security 
environment will require robust engagement with the militaries of our 
partners and allies around the world, and building productive 
relationships with many States in which our past military-to-military 
engagements have been limited or absent entirely.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. Yes.
                          stability operations
    Question. Experience in Iraq has underscored the importance of 
planning and training to prepare for the conduct and support of 
stability operations in post-conflict situations.
    In your view, what is the appropriate relationship between DOD and 
other departments of government in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. DOD has and will continue to play a supporting role to 
civilian agencies in stability and support operations post-conflict.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq?
    Answer. Recent operations in Iraq demonstrate that long-term 
success requires a robust capacity for integrated civil-military action 
and substantially more resources to support the expeditionary capacity 
of civilian departments. Long-term success will also require close 
cooperation between DOD and other U.S. Government departments in 
planning, preparing for, and conducting stability and support 
operations, both in terms of DOD participation in whole-of-government 
efforts and for interagency participation in the development of 
military campaign and contingency planning.
                       building partner capacity
    Question. In the past few years, Congress has provided the DOD a 
number of temporary authorities to provide security assistance to 
partner nations. These include the global train and equip authority 
(``Section 1206'') and the security and stabilization assistance 
authority (``Section 1207'').
    In your view, what are our strategic objectives in building the 
capacities of partner nations in the Asian and Pacific region?
    Answer. The strategic imperatives driving our partner capacity 
building efforts include strengthening bilateral relationships; 
increasing access and influence; promoting militaries that respect 
human rights, civilian control of the military, and the rule of law; 
and building capacity for common military objectives. These objectives 
differ by country and by context. DOD has a particular interest in 
building the capacity of partner-nations to participate in coalition 
operations or counterterrorism, or promote regional or global security 
in order to reduce stress on the U.S. Armed Forces and reduce the risk 
of future military interventions.
    Question. What is your understanding of the purpose of the section 
1206 global train and equip authority? What is your assessment of the 
implementation of the global train and equip program?
    Answer. As I understand it, section 1206 is intended to provide a 
quicker more targeted ability to build partner capacity than the more 
traditional routes of security assistance and is focused on building 
capacity to achieve security objectives. This authority has two 
discrete purposes outlined in law: to build a partner's national 
military or maritime security forces' capacity either to: (1) conduct 
counterterrorist operations; or (2) conduct or support stability 
operations where U.S. forces are participating.
    If confirmed, I will assess the program to ensure it is used in 
keeping with the intent of the authority and that it produces the 
intended security outcomes.
    Question. What is the relationship of the global train and equip 
authority to other security assistance authorities, such as 
counternarcotics assistance and foreign military financing? What should 
be done to ensure that the global train and equip authority does not 
duplicate the efforts of these other assistance programs?
    Answer. The global train and equip authority fills two specific 
legal requirements (to build capacity for counterterrorism and 
stability operations where U.S. forces are a participant). Foreign 
Military Financing serves broad foreign policy objectives such as 
improving bilateral relations, encouraging behavior in the U.S. 
interest, increasing access and influence, and building capacity 
particularly where host-nation and U.S. interests align. Secretary 
Gates noted in April 2008 that ``. . . building partner capacity is a 
vital and enduring military requirement--irrespective of the capacity 
of other departments.'' Counternarcotics authorities are focused on 
providing DOD the ability to support U.S. or other Government efforts 
to counter the flow of narcotics globally.
    We should avoid duplication of effort among these activities. If 
confirmed, I will do everything I can to deconflict among them.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (``Section 1207'')? What is your 
assessment of how this authority has been utilized?
    Answer. My understanding is that section 1207 fills a gap in the 
Department of State's ability to provide stabilization and 
reconstruction assistance. It allows DOD to transfer funding to the 
State Department to help meet State's reconstruction, security, or 
stabilization efforts. Secretary Gates made clear in past testimony how 
he sees the purpose of ``Section 1207'' authority: ``A touchstone for 
the Defense Department is that 1207 should be for civilian support for 
the military--either by bringing civilians to serve with our military 
forces or in lieu of them.'' I will monitor it closely, especially as 
it relates to the Asia-Pacific region, if confirmed.
    Question. Secretary Gates has called for an expansion of the 
Government's resources devoted to instruments of non-military ``soft 
power''--civilian expertise in reconstruction, development, and 
governance.
    Do you agree with Secretary Gates that there is a need to expand 
the Government's resources devoted to the ability of civilian 
departments and agencies to engage, assist, and communicate with 
partner nations?
    Answer. Yes.
    Question. In your view, what should be the role of the DOD, vis-a-
vis other civilian departments and agencies of the Government, in the 
exercise of instruments of soft power?
    Answer. Generally, the Department's role should be to support, not 
lead, in the exercise of ``soft power.''
    Question. Which department should have the lead in setting U.S. 
Government security assistance policy, the Department of State or the 
DOD?
    Answer. The Department of State should retain the lead in setting 
U.S. Government security assistance policy.
                              afghanistan
    Question. In your view, what should be our strategic objectives in 
Afghanistan?
    Answer. I believe that America's most enduring interest in the 
region is eliminating extremist threats in Afghanistan and Pakistan by 
disrupting, dismantling, and defeating al Qaeda and its safe havens in 
Pakistan and preventing their return to Afghanistan or Pakistan. If 
confirmed, I expect to support the Department's efforts in this 
critical challenge, which requires urgent and sustained attention.
    Question. What changes, if any, would you recommend to our current 
strategy in Afghanistan?
    Answer. The President's new strategy for Afghanistan and Pakistan 
takes the important step of adopting an integrated approach between 
civilian and military elements and approaching Afghanistan and Pakistan 
as one theater for diplomacy. This will help achieve key objectives of 
disrupting terrorist networks, promoting a more capable, accountable 
and effective government in Afghanistan, developing increasingly self-
reliant Afghan security forces, supporting civilian control, 
constitutional government and a vibrant economy in Pakistan, as well as 
supporting international community involvement and UN leadership in the 
effort. If confirmed, I look forward to working with Congress in 
achieving the important goals of this strategy.
    Question. Do you believe that there is a need to develop a 
comprehensive civil-military plan for Afghanistan, akin to that used in 
Iraq?
    Answer. Yes.
    Question. What is your assessment of the contributions of NATO 
allies to the effort in Afghanistan? Should the United States continue 
to press the NATO and other allied countries to increase their 
contributions to the Afghanistan effort, and if so, how might these 
countries do so?
    Answer. Our allies and non-NATO partners contribute significant 
resources and personnel to the efforts in Afghanistan. Non-U.S. members 
of NATO, Australia and other non-NATO allies are contributing 
approximately 32,000 forces in Afghanistan. NATO countries also 
announced new commitments of personnel and resources at the recent NATO 
summit, with particular focus on building Afghanistan's own security 
forces. Japan has made significant financial contributions, including 
its recent $1 billion commitment to Pakistan. Nevertheless, the 
challenges and needs in Afghanistan and Pakistan are even greater.
    The United States should continue to look to our allies around the 
world to shoulder a significant share of the military and financial 
burdens in Afghanistan. If confirmed, I would support continued efforts 
to urge our friends and allies to increase contributions in their areas 
of greatest strength. I would particularly look forward to working with 
our partners in Asia toward that end.
    Question. General David McKiernan, USA, Commander of the NATO 
International Security Assistance Force and Commander, U.S. Forces--
Afghanistan, has identified a need for 4 additional combat brigades and 
support units in Afghanistan, equaling up to 30,000 additional troops. 
President Obama has approved the deployment of an additional 17,000 
U.S. troops to Afghanistan in late spring and summer of this year. 
General McKiernan has said that these additional forces provide him 
what he needs for the coming months, but additional forces will still 
be needed to meet fully his request.
    Do you support General McKiernan's request for additional forces?
    Answer. I have not been fully briefed on the details of current 
operations and threat assessments, or internal deliberations associated 
with the Afghanistan/Pakistan strategy review. If confirmed, I look 
forward to assisting the USD(P) and others to assess the appropriate 
level of military forces required.
    Question. If so, how should the Department support combat brigades 
increases in Afghanistan, ahead of the national elections? Would you 
support drawing down U.S. forces in Iraq faster or redirecting to 
Afghanistan combat brigades already slated to replace brigades in Iraq 
in order to meet General McKiernan's request?
    Answer. The President has approved the deployment of more than 
21,000 additional U.S. forces to Afghanistan to meet urgent security 
needs, particularly in the volatile southern provinces, including the 
critical necessity to train additional Afghan National Security Forces 
(ANSF). My understanding is that these forces will arrive in 
Afghanistan in advance of the presidential election in August. It is 
also my understanding that the administration has looked to our allies 
and partners to provide additional forces to ensure security during the 
elections as well as the success of the ANSF training mission, and many 
allies have recently made additional commitments. To my knowledge no 
decision has been made on the deployment of additional U.S. combat 
brigades beyond the 21,000 additional U.S. forces noted above.
    Question. Would you support the temporary extension of combat 
brigades already deployed to Afghanistan? Would you support the 
accelerated deployment of combat brigades slated to deploy later this 
year to Afghanistan?
    Answer. If confirmed, I would expect to work closely with USD(P), 
the Joint Staff and Secretary of Defense to ensure deployment lengths 
of combat brigades in Afghanistan strike an appropriate balance between 
meeting our commanders' operational requirements and maintaining the 
health and readiness of our forces.
    Question. The goal for increasing the size of the Afghan National 
Army (ANA) has been revised from 68,000 to approximately 134,000 
soldiers.
    In your view, should rapidly increasing the number of U.S. trainers 
to accelerate the expansion of the ANA be a top priority in 
Afghanistan?
    Answer. Building an effective, broadly representative, and 
respected ANA requires significant resources, and the President's 
strategy review has made this objective a top priority. If confirmed, I 
will support the USD(P) and Secretary of Defense in providing oversight 
and guidance that ensures there are the right numbers of trainers, 
mentors, and advisors with sufficient resources to accomplish their 
mission.
    Question. What recommendations, if any, would you have for 
encouraging or enabling our coalition partners to provide more training 
team personnel to embed with ANA units?
    Answer. It is my understanding that the United States and NATO have 
assumed a long-term commitment to develop Afghan forces that can 
eventually take the lead for security in Afghanistan. If confirmed, I 
look forward to supporting the Department's efforts to encourage our 
coalition partners to deliver on their commitments to provide training 
team personnel.
    Question. One of the main threats to U.S. and coalition forces in 
Afghanistan comes from cross-border attacks by the Taliban and 
extremist militants who find safe haven in Pakistan's border regions. 
Director of National Intelligence Dennis Blair recently stated that 
``No improvement in the security in Afghanistan is possible without 
progress in Pakistan.'' He also stated, ``No improvement in Afghanistan 
is possible without Pakistan taking control of its border areas and 
improving governance, creating economic and educational opportunities 
throughout the country.''
    What steps in your view need to be taken to eliminate or mitigate 
the threat posed by Afghan Taliban and extremist militants hiding out 
across the Afghan-Pakistan border?
    Answer. As the President's strategy makes clear, Afghanistan and 
Pakistan are in many respects a single theater of operations, and both 
President Obama and Secretary Gates have cited the need to eliminate 
the terrorist sanctuary in the border regions of Pakistan. This 
sanctuary poses a potential threat not only to Afghanistan, but to the 
region and indeed to the United States. Clearly however, there is no 
purely military solution. The United States must pursue an integrated 
civil-military approach to promote development and prevent terrorism 
across the Afghanistan-Pakistan border region, as called for in our new 
strategy. If confirmed, I intend to work closely with my DOD and 
interagency colleagues to that purpose.
    Question. Would you agree that it is possible that developments 
within Afghanistan could lead to improvements in Afghanistan's security 
irrespective of developments in Pakistan's border areas?
    Answer. I agree that many of Afghanistan's challenges are internal. 
This is true of certain insurgent activities, the problem of warlords, 
poppy cultivation and narcotics production, and general criminality. 
However, I believe that we have learned from years of conflict that 
insurgent and terrorist safe-havens in Pakistan and illicit cross-
border activity must also be suppressed to establish sustainable 
security in Afghanistan.
    Question. The ANA has shown itself to be effective, well-motivated, 
and respected by the Afghan people.
    Would you support giving the ANA the lead in stopping cross-border 
incursions, either by transferring the mission of patrolling the border 
to the ANA or by bringing the Afghan Border Patrol under the ANA?
    Answer. The ANA has increasingly shown itself to be effective, 
well-motivated, and respected. Clearly securing the border areas from 
cross-border incursions and illegal smuggling is an important element 
of a successful long-term strategy. The issue of command relationships 
between the Afghan Border Patrol and ANA is an area that I have not 
examined in detail, and if confirmed, will study more closely.
                    afghanistan-counterdrug efforts
    Question. The cultivation of poppies and trafficking of opium has 
reached alarming proportions in Afghanistan. Some estimate that over 50 
percent of Afghanistan's gross national product is associated with the 
illegal opium trade and that Afghanistan is at risk of failing as a 
nation state. Coalition strategies for countering the opium trade have 
not been effective to date.
    In your view, what strategy would be most effective in reducing 
opium production and trafficking in Afghanistan?
    Answer. Opium traffic continues to distort the Afghan economy, 
corrode the judicial system, and exacerbate corruption and criminal 
violence. Countering the opium trade should include a nuanced and fully 
resourced coalition and Afghan strategy, including crop substitution 
and alternative livelihoods, interdiction and eradication, judicial 
reform, better law enforcement and intelligence sharing, and rural 
economic development and public information.
    Question. What is the appropriate role for coalition nations and 
the larger international community in effectively addressing the 
counterdrug challenge in Afghanistan and the surrounding region?
    Answer. I believe it is critical for the international community to 
play a greater role across the full range of initiatives and operations 
designed to help the Government of Afghanistan strengthen Afghan 
institutions, ranging from the judicial and law enforcement system, to 
its intelligence service, and the Afghan National Security Forces, so 
that it can better take the lead in combating narcotics in Afghanistan.
                       afghanistan-reconstruction
    Question. What is your assessment of the relationship between 
reconstruction and development in Afghanistan and achieving U.S. policy 
objectives in Afghanistan?
    Answer. I believe that effective reconstruction and development 
programs are essential elements of an integrated civil-military 
strategy to achieve U.S. objectives in Afghanistan. These programs are 
especially important at the provincial and local levels where they can 
have the most direct impact in creating opportunity and improving 
lives. Unless young Afghans have reasonable economic opportunities 
there will never be stability and security in the country.
    Question. What are the main challenges facing the U.S. and 
international community's reconstruction and development efforts in 
Afghanistan?
    Answer. In my view, high levels of violence in Afghanistan 
constitute the most immediate and pressing challenge to reconstruction 
and development efforts, which must feature prominently in any 
successful long-term strategy. The Afghan people have suffered through 
more than a generation of war, and the country's development challenges 
are immense. The majority of Afghans make their living from farming, 
yet extensive drought and failing agricultural infrastructure create 
openings for opium production to supplant the legal agricultural 
economy. While Afghanistan has seen improvements in health care in 
recent years, life expectancy remains below 45 years while more than 
half of Afghan children suffer from poor nutrition and disease. While 
progress has been made towards primary education in Afghanistan, fewer 
than half of adult males and only one in eight females can read, 
impeding the professionalization of the Afghan Government and security 
forces and limiting economic growth.
    Question. What would be your priorities for addressing those 
challenges?
    Answer. If confirmed, I look forward to supporting the USD(P) in 
working with interagency partners to help implement the 
administration's strategy, including by engaging our coalition partners 
and the international community to advance reconstruction and 
development efforts in Afghanistan.
    Question. What changes, if any, would you recommend for the 
strategy, organizational structure, or resourcing of Provincial 
Reconstruction Teams (PRTs) in Afghanistan?
    Answer. I believe that PRTs have been critical to the development 
work undertaken in Afghanistan and Iraq in recent years. If confirmed, 
I look forward to discussing the committee's concerns and ideas on the 
use of PRTs.
                                pakistan
    Question. What is your view of the current state of U.S.-Pakistani 
security relations? Are there steps you would recommend to improve 
these relations?
    Answer. Pakistan is a critical ally in the long-term struggle 
against extremism and terrorism. A confluence of overlapping security 
concerns--including the presence of al Qaeda terrorists and Taliban 
affiliated extremists, United States and NATO lines of communication to 
Afghanistan, nuclear weapons, and an unstable economic environment--
make Pakistan a key national security interest for the United States. 
Pakistan and the United States share mutual interests in these areas 
and it is essential to continue to build and cultivate a long-term 
relationship built on respect and trust regarding security and other 
overlapping interests. If confirmed, I look forward to learning more 
about all aspects of ongoing U.S.-Pakistan relations and helping the 
USD(P) shape effective policies for engagement by the U.S. military, 
the State Department, and other agencies.
    Question. What is your understanding and assessment of the efforts 
by the Pakistani Government to counter militant groups along the 
Afghan-Pakistan border and to fight terrorism in general?
    Answer. Any enduring solution to the challenge of defeating the 
terrorist and cross-border insurgent groups that threaten Afghanistan, 
Pakistan, and the international community requires Pakistan's strong 
support. While the Pakistani Government has conducted several military 
operations in the past against militants in border areas, the region 
remains a sanctuary for al Qaeda and Taliban affiliated groups. The 
threat appears to be increasing.
    Question. In your view, is the Pakistani Government doing enough to 
combat these threats? If not, what more should it be doing? What in 
your view should be the U.S. approach vis-a-vis Pakistan?
    Answer. While I have not been briefed in detail on any assessments 
of Pakistan's willingness and ability to combat these threats, I 
believe that any long-term success in countering them requires 
extensive and sustained attention by various elements of Pakistan's 
Government. If confirmed, I look forward to assessing ways in which the 
United States and Pakistan can work better together to combat these 
shared threats.
                                 india
    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. A close and continuing security relationship with India 
will be important for Central Asia's security and for effectively 
managing Indian Ocean security in the 21st century. The United States 
and India have a range of common security interests that include 
maritime security, counterterrorism, and regional stability. I 
understand that U.S.-India security relations are currently quite 
positive, multi-faceted, and getting stronger. Military-to-military 
engagement is growing in size, scope, and sophistication as the two 
militaries become more familiar with each other through frequent 
exercises and subject matter exchanges.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I believe our priorities for this 
relationship should be focused on increasing maritime security 
cooperation, cooperating on counterproliferation, collaborating on 
humanitarian assistance and disaster response, dealing with piracy, 
finding ways to cooperate on counterterrorism, and deepening defense 
trade. Additionally, I believe there is potential for greater 
intelligence sharing on common threats, cooperation on missile defense, 
and working towards stability in Afghanistan.
    Question. What, in your view, is the effect on DOD interests, if 
any, of the civil nuclear cooperation agreement with India?
    Answer. The civil nuclear cooperation agreement was a landmark 
agreement that significantly transformed the U.S.-India bilateral 
relationship. The agreement has also deepened the level of trust 
between the United States and India which will have positive effects on 
DOD interests and will hopefully lead to greater military-to-military 
cooperation and increased defense trade.
    Question. How do you assess the relationship between India and 
China and how does that relationship impact the security and stability 
of the region?
    Answer. As Asia's two largest powers, India and China collectively 
will have a significant impact on Asia's future security landscape. 
Both countries are in the process of building their respective military 
capabilities. I understand India has concerns about China's increasing 
presence in the Indian Ocean, and also has outstanding border disputes 
with China. It is important to actively engage both of these Asian 
powers to ensure they both contribute in a positive way towards Asian 
stability and security.
    Question. The recent incident in Mumbai raises questions about what 
more might be done to help India guard against and react to terrorist 
incidents, and underscores the fragile nature of the relationship 
between India and neighboring Pakistan.
    What do you believe the United States should do to assist the 
Indian government in the prevention of and response to terrorist 
events?
    Answer. As the world's largest democracy, India is a critical 
strategic partner of the United States. Both India and the United 
States share an interest in preventing terrorism. After the Mumbai 
attacks, I understand there may be greater interest from India in 
counterterrorism cooperation. If confirmed, I will work with the State 
Department to carefully consider all requests for counterterrorism 
assistance from India.
    Question. What is your assessment of the relationship between India 
and Pakistan?
    Answer. Tensions between India and Pakistan significantly increased 
after the Mumbai attacks in November 2008. India's response after the 
Mumbai attacks was commendable for its restraint and responsible 
behavior. While the situation has stabilized somewhat since November, I 
believe relations between India and Pakistan remain fragile.
    Question. In your view, what impact has this rise in tensions 
between Pakistan and India had on the stability of the South Asia 
region, generally, and on the prospects for security in Afghanistan?
    Answer. India, Pakistan, and Afghanistan are linked by history, 
culture, language, and trade, and regional stability cannot be achieved 
without the cooperation of all three. It is in America's national 
interest to play a constructive role in helping defuse the recent rise 
in tensions and to help derive from the tragic attacks in Mumbai an 
opportunity for further cooperation between three of America's crucial 
partners. Doing so will allow Pakistan to commit more of its resources 
to its western regions against extremist elements that are undermining 
its stability, and will permit Afghanistan to focus its efforts on 
developing an effective government that is able to secure both its 
borders and its citizens.
                    force posture in the uspacom aor
    Question. Perhaps more than with any other combatant command, 
military exigencies in the U.S. Pacific Command (USPACOM) area of 
responsibility (AOR) are subject to the ``tyranny of distance'' in 
getting forces to points of conflict. Significant changes to the U.S. 
force posture in the region are planned over the next several years, 
including movement of marines from Okinawa to Guam and relocation of 
U.S. forces within South Korea.
    In your view, how important is the forward basing strategy to the 
ability of USPACOM to execute its operational contingencies?
    Answer. The United States' forward-basing strategy is critical to 
enable USPACOM's execution of its operational contingencies given the 
importance of providing capabilities that can be flexibly deployed, 
employed, and sustained in a timely manner across a spectrum of 
contingencies.
    Question. What do you see as the implications of the proposed force 
structure changes, particularly in Korea, Japan, and Guam, with respect 
to the Asia-Pacific region in general?
    Answer. I believe U.S. posture changes in Korea and Japan 
contribute to strengthening our alliances and better positioning U.S. 
forces to ensure a more sustainable and capable regional force posture. 
By relocating U.S. forces, the United States will address longstanding 
host-nation concerns such as noise and encroachment without 
compromising their missions. The moves also improve and enhance mutual 
defense infrastructure in the region, incorporating and executing 
several large investment projects from the Governments of South Korea 
and Japan. At the same time, the United States will make better use of 
Guam's strategic advantages by arraying U.S. forces in Asia more 
effectively for the evolving security environment.
    Question. How does the relocation of U.S. forces from Okinawa to 
Guam improve our security posture in the region?
    Answer. This is the most comprehensive package of force posture 
changes in Japan and Guam in decades, and I believe that these 
initiatives will further several strategic goals. First, they will 
strengthen our alliance with Japan by addressing long-standing problems 
with our presence in Okinawa. Second, they will ensure the continued 
long-term presence of U.S. forces in Japan and in the Western Pacific. 
Third, by making better use of Guam's strategic advantages, they will 
array U.S. forces in Asia more effectively for the evolving security 
environment.
    Question. What impact, if any, do you expect the proposed changes 
in our force posture will have on the U.S. ability to defend South 
Korea and Japan or to react to a crisis in the Taiwan Strait?
    Answer. These posture changes increase flexibility to respond when 
and where U.S. forces are needed, and strengthen the United States' 
overall capacity to deter coercive and aggressive action in the Asia-
Pacific region. Planned posture changes in the region will strengthen 
deterrent and strike capabilities (i.e., U.S. maritime, air, and 
deployable ground forces) forward in the Pacific as well as strategic 
mobility and command and control (C2) support from the United States--
all of which are relevant to supporting our allied commitments for 
self-defense in contingencies.
    Question. Some observers suggest that the United States is 
preoccupied in Iraq and Afghanistan and not focused sufficiently on the 
challenges in East Asia at a critical time in the development of that 
region.
    How do you assess the U.S. engagement in East Asia relative to U.S. 
engagement in other parts of the world, particularly Central and 
Southwest Asia?
    Answer. I agree with Secretary Gates' observation at the 2008 
Shangri La dialogue that the United States has never been more engaged 
with more Asian countries.
    Question. Are the levels of funding, manning and military-to-
military engagement in the Asia-Pacific region appropriate as compared 
to other regions? Do you see a need to increase those levels in the 
coming years?
    Answer. Strengthening partnership capacity, reinforcing existing 
alliances, and enhancing emerging relationships will continue to 
require investment of resources and attention. If confirmed, I will 
advocate for appropriate levels of funding, manning and military-to-
military engagement in the Asia-Pacific region.
    Question. Many of our key alliances in Asia were established years 
ago when global conditions and threats to U.S. security were different 
than today. USPACOM has as a top objective the development of 
cooperative security arrangements with allies and partners in the 
region.
    Do you agree with this objective and, if so, what countries do you 
see as the top priority for such arrangements to best enhance stability 
and security in the region? Why?
    Answer. If confirmed, I will continue to support the development of 
cooperative security arrangements with allies and partners in the 
region. Access to regional ports, airfields, and logistical facilities 
on a nonpermanent but recurring basis, increases the flexibility of our 
force employment options. Australia and Singapore are top priorities in 
this regard. I will work with the Commander, U.S. Pacific Command, to 
ensure a complementary approach to this important objective.
    Question. How should U.S. policies and engagements in the Asia-
Pacific region change to best meet new threats and conditions
    Answer. A critical step to meeting the new threats and conditions 
in the Asia-Pacific region is to execute the transformational security 
agendas we have with many allies and partners in the region. Additional 
significant changes will be guided by the ongoing QDR process.
                                 china
    Question. China is viewed by some in the United States as a 
potential threat and by others as a potential constructive 
international partner that should be welcomed and integrated into the 
international economic and political community.
    How would you characterize the U.S. relationship with China?
    Answer. I would characterize the U.S.-China security relationship 
as complex, with some elements of cooperation and others of potential 
competition. The military aspect of the relationship is embedded within 
an even more complex set of political and economic relationships 
between Washington and Beijing, and fundamentally colors our security 
relationships with Japan, South Korea, the Southeast Asian nations, and 
Taiwan.
    Question. To what extent do you believe the policies and actions of 
the United States and other major regional and international actors 
will affect the direction in which China develops, and the extent to 
which it becomes a cooperative partner or a competitor of the United 
States?
    Answer. I believe that U.S. policies and actions can influence the 
direction of China's development. No country has done more to assist, 
facilitate, and encourage China's national development and integration 
into the international system than the United States. However, U.S. 
policy and actions, or the policies and actions of any country or group 
of countries for that matter, cannot alone determine China's future 
which, in many ways, will be based upon the choices that China's 
leaders make. Today, as Secretary Gates noted in a speech at the U.S. 
Institute of Peace on October 15, 2008, ``China is a competitor but not 
necessarily an adversary, and there is no reason for China to become an 
adversary.'' More fundamentally, the United States can also help to 
shape the environment in which China makes its strategic choices, and 
in so doing, encourage China to ``do the right thing.''
    Question. What do you see as the impact of the current global 
economic crisis on stability and security in China specifically, and in 
the region generally?
    Answer. It is too early to gauge the full impact of the global 
economic crisis upon China and stability in the Asia-Pacific region 
more broadly. But those who manage defense and security issues must be 
attentive to the security-economic interconnections and be prepared to 
work together with colleagues in economic and diplomatic fields, both 
to guard against negative outcomes and also to seek positive ways 
forward where they may exist.
    Question. China's defense spending in 2009 will exceed 2008 
spending by 15 percent. This continues China's trend of double-digit 
increases in defense spending every year since the late 1980s.
    What do you believe are the objectives of China's steady increase 
in defense spending and its military modernization program?
    Answer. I am deeply concerned about China's military modernization. 
China continues to invest heavily in strategic weapons, power 
projection, area denial, and asymmetric warfare. China appears focused 
in the near-term on generating capabilities for potential Taiwan 
contingencies, including those that would involve U.S. intervention. 
China is also developing longer range capabilities that have 
implications beyond Taiwan. Some of these capabilities have allowed it 
to contribute cooperatively to the international community's 
responsibilities in areas such as peacekeeping, humanitarian assistance 
and disaster relief, and counterpiracy. However, some of these 
capabilities, as well as other, more disruptive ones, could allow China 
to project power to ensure access to resources or to enforce claims to 
disputed territories. China has left unclear to the international 
community the purposes and objectives of China's evolving doctrine and 
capabilities. Seeking to clarify this ambiguity is an important 
strategic goal for the United States. If China exercises responsibility 
and restraint in the pursuit of its legitimate aspirations, it will 
find a willing partner in the United States.
    Question. How should the United States respond to the Chinese 
military modernization program?
    Answer. The pace and scale of Chinese modernization, coupled with 
the lack of transparency surrounding both capabilities and intentions, 
are a source of concern for the United States as well as for its allies 
and the region more broadly. An appropriate U.S. response would include 
efforts to fully comprehend the future direction of China's intentions 
and capabilities, active engagement to reduce the potential for 
miscalculations and to manage unwanted competition, and, finally, 
defense preparedness to ensure the United States maintains an enduring 
strategic presence in the Asia-Pacific region, and retains an edge in 
areas that are critical to achieving specific operational objectives.
    Question. What do you believe are the Chinese political-military 
goals in the Asia-Pacific region? Globally?
    Answer. Broadly, the overriding objectives of China's leaders 
appear to be to ensure the continued rule of the Chinese Communist 
Party, continue China's economic development, maintain the country's 
domestic political stability, defend China's national sovereignty and 
territorial integrity, and secure China's status as a great power. 
Within this context, preventing any moves by Taipei toward de jure 
independence is a key part of Beijing's strategy. Within each dimension 
there lies a mix of important challenges and opportunities for the 
United States that will continue to deserve priority attention.
    Question. How do you assess the current cross-strait relationship 
between China and Taiwan, and how can we help prevent miscalculation on 
either side?
    Answer. Taiwan has made significant strides to reduce tensions in 
the Taiwan Strait. These initiatives should be encouraged. I believe 
the United States can help to prevent miscalculation on either side by 
continuing to abide by our longstanding policies, based on the three 
joint U.S.-China Communiques and the Taiwan Relations Act, to include 
making available to Taiwan ``defense articles and services in such 
quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' Such a continued commitment by 
the United States will allow Taiwan to continue its outreach to the PRC 
without fear of coercion.
    Question. What is your view regarding the longstanding U.S. policy 
of selling military equipment to Taiwan despite objection and criticism 
from China?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
Taiwan Relations Act, which provides that the United States ``will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability (sec. 3.a).'' That policy has contributed to peace and 
stability in the region for over 30 years and is consistent with the 
longstanding U.S. calls for peaceful resolution of the Taiwan issue in 
a manner acceptable to the people on both sides of the Taiwan Strait. I 
believe our arms sales have been carried out in a responsible manner.
    Question. How do China's efforts to establish a strategic presence 
in various South Asian seaports affect its political-military posture 
and influence in the region?
    Answer. China looks to South Asia as an area of strategic 
importance, which includes political objectives, access to resources, 
trade, and investment. In regards to South Asian seaports, the 
important question is how China intends to use its presence. The United 
States retains strong relationships in South Asia and should continue 
to monitor China's growing presence in the region.
    Question. What are your views of China's recent deployment of 
warships to the west Indian Ocean to counter piracy in that area and 
how does this deployment contribute to China's ability to project 
power?
    Answer. Generally speaking, I see China's participation in counter 
piracy operations as a positive development that contributes to solving 
a global security challenge and demonstrates China's ability to use its 
military in a positive, constructive, and responsible manner. It is 
more than likely that from this experience China could begin to develop 
capabilities that would enhance its ability to sustain a deployed force 
over an extended period of time.
    Question. Our military-to-military relations with the Chinese 
military have been characterized as ``modest'' and the Chinese approach 
to these relations can be accurately described as ``on again, off 
again.''
    What is your assessment of the current state of U.S.-China 
military-to-military relations?
    Answer. There are some signs of progress, but overall there is a 
lack of trust and mutual understanding, and the relationship continues 
to be marred by incidents such as those involving USNS Impeccable in 
March 2009.
    Question. Do you believe that we should make any changes in the 
quality or quantity of our military relations with China? If so, what 
changes and why?
    Answer. More can be done to improve the U.S.-China military-to-
military relationship, both in terms of the quality and the quantity of 
exchanges between the Armed Forces of our countries. If confirmed, I 
would look closely at exchanges with the Chinese armed forces at all 
levels and across a range of issues, including the recently opened 
dialogue on nuclear policy and strategy, which I understand is a 
priority for Secretary Gates. If confirmed, I look to engage in a wide 
range of areas where we can encourage China to act responsibly both 
regionally and globally.
    Question. Recently, Chinese-flagged ships harassed the USNS 
Impeccable, a U.S. military ship conducting ocean surveillance in the 
international waters of the South China Sea. The incident underscores 
the nature of certain Chinese maritime claims and the sensitivity 
associated with U.S. naval operations in these areas.
    What is your assessment of the incident?
    Answer. I view the harassment of the USNS Impeccable within China's 
exclusive economic zone (EEZ) as a serious incident. The United States 
has a longstanding policy on freedom of navigation, consistent with 
customary international law and as reflected in the U.N. Convention on 
the Law of the Sea.
    Question. What can the United States do to help prevent such 
incidents in the future?
    Answer. I believe the United States should clearly assert and 
exercise its rights, work with other states with similar interests and 
perspectives as appropriate, and ensure effective communications to 
reduce the risks of accident or miscalculation. I was very pleased by 
Secretary Gates' statement on March 18 that ``. . . based on the 
diplomatic exchanges that have taken place, since the aggressive acts 
against the Impeccable . . . there won't be a repetition of this 
[incident].''
    Question. In its 2008 Report to Congress, the U.S.-China Economic 
and Security Review Commission (USCC) concluded that China is asserting 
various excessive claims of sovereignty, including maritime, air and 
space, and also concluded that these claims have negative implications 
for the United States. Further, the Commission concluded that more must 
be done to ensure that China's rapid expansion of nuclear power does 
not result in the decline in safety or an increase in proliferation of 
nuclear weapons technology or expertise.
    How should the United States respond to excessive claims of 
sovereignty by China? Would U.S. accession to the United Nations Law of 
the Sea Convention be beneficial in this regard? If so, how?
    Answer. As stated above, the United States has a longstanding 
policy on Freedom of Navigation, and as recent events relating to the 
USNS Impeccable have demonstrated, does not acquiesce to excessive 
maritime, air, or space claims that restrict navigation and over-flight 
rights under customary international law (as reflected for example in 
the U.N. Convention on the Law of the Sea). In addition to asserting 
U.S. rights, I believe the United States should work with other 
countries that have a stake in this issue to engage China.
    I support U.S. accession to the Law of the Sea Convention. It is in 
America's enduring interest to be at the forefront of promoting the 
rule of law, including in the world's oceans. Were we to become a party 
to the Convention it would send a clear signal to the world that we are 
committed to advancing the rule of law at sea. Additionally under the 
Convention, we would provide the firmest possible legal foundation for 
the navigational rights and freedoms needed to project power, reassure 
our friends and allies, deter adversaries, respond to crises, sustain 
deployed combat forces, and secure sea and air lines of communication 
that underpin international trade and our own economic prosperity.
    Question. What is the role of DOD in helping to ensure that China's 
nuclear power industry does not contribute to the proliferation of 
nuclear weapons in the region?
    Answer. The Obama administration has reiterated that preventing the 
proliferation of WMD and delivery systems, along with related 
technologies and materials, is a key goal for the United States. I 
believe that DOD should work in the interagency process to ensure that 
any proliferation concerns relating to China including its nuclear 
power industry are expressed to the Chinese Government in appropriate 
forums, and should similarly support the development of appropriate 
interagency responses in the event that China takes steps that do 
contribute to proliferation.
    Question. The USCC also concluded that cyber space is a critical 
vulnerability for the United States, that China is aggressively 
pursuing cyber warfare capabilities, and that China would likely seek 
to take advantage of the U.S. dependence on the internet and cyber 
space in the event of a potential conflict situation.
    If confirmed, what would you do to help ensure our military is 
protected in cyber space and prepared to defend against a cyber attack?
    Answer. We, as many other nations, have been the target of 
innumerable malicious activities via cyberspace from hackers, 
criminals, and unidentified entities, some of which may well be nation 
states. I understand that numerous steps have been taken to increase 
network defense and monitoring capabilities. This work continues 
aggressively today. The DOD should also continue to evaluate all global 
threats to its networks and work closely with other government 
agencies, industry, and the international community in order to meet 
those threats.
    Question. On January 11, 2007, China used a ground-based missile to 
hit and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community.
    What is your view of China's purpose in conducting this test?
    Answer. In my view, this test was just one element of China's 
military modernization effort to develop and field disruptive military 
technologies, including those for anti-access/area-denial, as well as 
for nuclear, space, and cyber warfare.
    Question. What do you see as the long-term implications of this 
test for the U.S. military, for U.S. national security, and for U.S. 
interests in space?
    Answer. Space systems are vital to our national interest. In this 
regard, the United States should seek ways to protect our interests in 
space.
    Question. If China were to conduct a second test, would that change 
your view? Why or why not?
    Answer. A second test of such a system would reaffirm my view that 
this system is one element of China's broad military modernization 
program that features a number of disruptive elements designed to 
support a strategy of anti-access and area denial. More troubling than 
that would be China's blatant disregard for the concerns expressed by 
the international community after their January 2007 test if China were 
to conduct another such test in the future.
    Question. What are your views regarding the potential weaponization 
of space and the international agreements to prevent space 
weaponization?
    Answer. The safe and responsible use of space and preservation of 
the space environment are important issues for all nations, especially 
for space-faring nations. Encouraging responsible behavior through 
establishment of international norms, such as the Space Debris 
Mitigation Guidelines led by the United States and endorsed by the U.N. 
General Assembly, is an excellent model.
                                 taiwan
    Question. What is your view of the current state of the U.S.-Taiwan 
security relations?
    Answer. The United States has a robust security relationship with 
Taiwan. I have had the privilege to go to Taiwan as a private citizen 
and observe first-hand how we support Taiwan during their annual Han 
Kuang Field Training Exercise. This is just one aspect of our 
relationship and I will continue to look for additional ways to work 
with Taiwan to bolster their defensive capabilities, consistent with 
our obligations under the Taiwan Relations Act.
    Question. What are the priorities, in your view, for U.S. military 
assistance to Taiwan?
    Answer. I believe priority areas include: enhancing the training 
establishment; hardening of critical infrastructure; ensuring increased 
munitions are available to counter the threat; and an advanced 
integrated air and missile defense. If confirmed, I would continue to 
work with Taiwan to review its defensive needs considering the current 
and projected PRC threat.
    Question. What is your view of the relationship between the type of 
assistance we offer Taiwan and regional stability?
    Answer. The United States is closely monitoring the shifting 
balance in the Taiwan Strait and Taiwan's defense needs, and we are 
well aware of the increasing capability of the PRC military. Regional 
stability depends on a strong Taiwan. Taiwan must be able to deter PRC 
coercion, and the best deterrent available to Taiwan is a strong 
defensive military.
    Question. What is your opinion of the Taiwan Relations Act (TRA)? 
Enacted 30 years ago this year, do you see any need to modify the TRA 
to reflect the current state of affairs in the region? If so, how?
    Answer. The TRA has been in force for over 30 years, its 
flexibility has allowed it to accommodate changing circumstances on 
both sides of the Taiwan Strait, as well as Taiwan's evolving 
relationship with the United States.
    Question. What is your assessment of the implementation of the TRA?
    Answer. The TRA provides that the United States ``will make 
available to Taiwan such defense articles and defense services in such 
quantity as may be necessary to enable Taiwan to maintain a sufficient 
self-defense capability (sec. 3.a).'' That policy has contributed to 
peace and stability in the region for over 30 years and is consistent 
with the longstanding U.S. calls for peaceful resolution of the Taiwan 
issue in a manner acceptable to the people on both sides of the Taiwan 
Strait.
    Question. Given the increasing military imbalance across the Taiwan 
Strait, what is the best policy prescription to encourage Taiwan to 
invest more in its own self-defense?
    Answer. The best method to improve Taiwan's defensive capability is 
not just spending more; it must include spending more wisely. Taiwan 
can no longer out spend the PRC on its defense. However, they can 
invest more wisely to compensate for the current and future threats 
posed by the PRC. Taiwan needs to enhance the professionalism of their 
military, and transform their military to meet future threats. Some of 
these ideas were addressed by Taiwan's QDR and, if confirmed, I intend 
to work closely with PACOM to improve Taiwan's defensive capabilities.
    Question. What measures, if any, would you recommend be implemented 
to encourage China to soften its military posture vis-a-vis Taiwan?
    Answer. Consistent with longstanding U.S. policy, I believe that 
the United States would support any resolution in the Taiwan Strait 
provided that it is arrived at peacefully and with the support of the 
people on both the Mainland and Taiwan. If confirmed I would look for 
ways to highlight to Beijing the inconsistency between its military 
posture opposite Taiwan and a peaceful resolution of the Taiwan Strait 
issue that both sides can support.
                          the korean peninsula
    Question. North Korea represents one of the greatest near-term 
challenges to U.S. national security interests in Asia. Deterring 
conflict on the Korean peninsula remains a top priority. At the same 
time, the United States and South Korean relationship, while strong, is 
undergoing substantial changes in terms of command and control and 
force laydown over the next several years.
    What is your assessment of the current security situation on the 
Korean peninsula and the diplomatic efforts to date to persuade North 
Korea to verifiably dismantle its nuclear weapons program?
    Answer. North Korea's conventional military, WMD and proliferation 
activities continue to pose a significant threat to regional peace and 
security. Recent North Korean provocations, including its launch of a 
Taepo Dong-2 missile, are unhelpful to regional stability and 
relations. Working with our allies and other key parties in the region 
and internationally on diplomatic solutions is an essential element in 
addressing the totality of security problems on the Korean peninsula, 
the most vital of which is the complete and verifiable denuclearization 
of North Korea. Likewise, it is essential to maintain the capabilities 
to deter North Korea's military threat and proliferation activities. 
Strong alliances with South Korea and Japan remain instrumental in this 
regard. These alliances help maintain the peace and stability that have 
allowed the wider East Asia region to prosper over the past several 
decades. Ongoing transformation and realignment efforts will continue 
to strengthen our alliances, ensure an enduring U.S. military presence, 
and improve U.S. capabilities to address future security challenges.
    Question. What is your assessment of the threat posed to the United 
States and our allies by North Korea's ballistic missile and WMD 
capabilities, and the export of those capabilities?
    Answer. I believe that North Korea missile and WMD programs pose a 
serious threat to the United States, our forces, and our allies. This 
threat was evidenced recently in North Korea's April launch of a Taepo 
Dong-2 missile. Strong alliances and allied security cooperation, 
regional partnerships, and forward military presence remain key means 
to deal with these threats and to uphold allied defense commitments. 
U.S. national capabilities, such as ballistic missile defense, are also 
an essential element in deterring the threat and defending our 
interests, and it is my understanding that these capabilities and 
related developments in this area played an important role in the 
improved cooperation with our allies, Japan and the Republic of Korea, 
surrounding the April 2009 North Korean missile launch.
    Question. What are the short-term and long-term military 
implications for the United States of the ongoing tension on the Korean 
Peninsula?
    Answer. North Korea's actions and behavior pose a threat to the 
peace and stability of the Republic of Korea, the United States, Japan, 
and others in the region. While North Korea's conventional military 
continues to deteriorate due to a lack of force modernization and 
advanced training programs, the asymmetric threat it poses continues to 
grow. North Korea continues to maintain strong nuclear ambitions. In 
early April, North Korea demonstrated, against the will of the 
international community, that it intended to continue its ballistic 
missile development program. Additionally, North Korea's Special 
Operations Forces, the largest in the world, maintain a high 
operational readiness and training tempo, and its cyber capability is 
also increasingly concerning. Given these asymmetric capabilities, the 
combined U.S.-ROK defense posture on the Korean Peninsula continues to 
be instrumental in deterring North Korean provocation. The U.S. 
commitment to the Alliance and to the Republic of Korea plays an 
immeasurable role in containing the North Korean threat and in reducing 
the risk of the North's miscalculation on the peninsula.
    Question. How do we ensure that we continue to protect our vital 
regional interests, while continuing meaningful progress toward the 
transfer of command and control to the Republic of Korea and the 
relocation of U.S. forces on the Korean Peninsula?
    Answer. The U.S.' vital regional interests are well served by both 
the successful transition of wartime operational control (OPCON) to the 
Republic of Korea as well as the relocation of U.S. forces on the 
Korean Peninsula to enduring facilities. With the transition of wartime 
OPCON, the South Korean people will take a leadership role in the 
Alliance and a greater role in the defense of their own country. While 
this is long overdue, completing this transition in 2012 will 
demonstrate to North Korea and the region that the Republic of Korea 
military is strong and capable, thereby enhancing the Alliance's 
deterrent and stabilizing role and shaping the attitudes of future 
generations of Koreans about the Alliance. Similarly, the relocation of 
U.S. Forces Korea is advancing U.S. vital interests in the region by 
ensuring a sustainable U.S. military presence for the long-term. The 
ROK's substantial investment in this relocation effort is demonstrating 
that it will continue to welcome this U.S. military presence on the 
Korean Peninsula for the foreseeable future. As a result of this 
combined realignment effort, the U.S. military's enduring presence will 
continue to provide an effective deterrent and ensure peace and 
stability on the Korean Peninsula and throughout the region, conditions 
under which the Republic of Korea developed into a thriving democracy 
and a robust free market economy (the world's 14th largest).
    Question. With recent speculation regarding the possible poor 
health of North Korean leader Kim Jong-il, what, if anything, should 
the U.S. be doing now to prepare for the possibility of a change in 
leadership in North Korea?
    Answer. If confirmed, I will work to ensure that the United States 
and our allies are capable of addressing sudden onset crises, other 
forms of instability, or any other scenario that may result from a 
change in North Korean leadership. Fundamentally, our focus should be 
ensuring we are ready to maintain stability in the region, support 
defense of the Republic of Korea and Japan, and prevent the 
proliferation of WMD or other dangerous technologies from North Korea.
    Question. The alliance between the United States and South Korea 
has been a key pillar of security in the Asia Pacific region. This 
relationship has gone through periods of inevitable change.
    What is your understanding of the current status of the U.S. 
security relationship with South Korea?
    Answer. I believe that the U.S.-Republic of Korea (ROK) alliance 
remains strong and continues to ensure peace and stability on the 
Korean Peninsula and in Northeast Asia. In the face of changes in the 
regional security environment, the United States and the ROK have made 
great strides in transforming their collective deterrent and defense 
posture. In particular, the ROK has made major strides in developing 
its defense capabilities, commensurate with its economic development. 
Consequently, the Alliance remains relevant and capable both for 
deterring aggression on the peninsula and for addressing regional and 
global security issues.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-South Korean security relationship?
    Answer. If confirmed, I would support the continued realignment of 
U.S. forces on the Korean Peninsula and the return of facilities that 
our forces no longer require. The United States is also working toward 
developing new command and control relationships with Korea and should 
ensure that contingency plans remain appropriate to changing 
circumstances. Additionally, I believe it is important to ensure the 
U.S. and Korean publics continue to understand the enduring mutual 
benefits derived from this alliance, and that the U.S. work effectively 
with the Republic of Korea as it plays an increasing role in regional 
and global security issues commensurate with its economic status and 
influence.
    Question. What is your view regarding the timing of turning over 
wartime operational command to South Korea?
    Answer. As Secretary Gates said publicly following his meeting with 
the Korean Minister of Defense last October, the ROK military forces 
and U.S. forces are on track to complete the alliance agreement to 
transition wartime operational control in 2012. This effort will enable 
the ROK military to take the lead role in the defense of Korea. If 
confirmed, I will support the efforts of the Secretary, this committee, 
and others to ensure that the important transition in command 
relationships is carried out in a manner that strengthens deterrence 
and maintains a fully capable U.S.-ROK combined defense posture on the 
Korean Peninsula.
    Question. Do you support expanding the number of U.S. personnel 
assigned to the Korea Peninsula for 2- or 3-year tours of duty and 
increasing the number of military and civilian personnel authorized to 
be accompanied by their dependents for these longer assignments?
    Answer. Yes. If confirmed, I would support the expansion of tour 
lengths for servicemembers assigned to Korea. Normalization of tours 
will provide greater stability for U.S. servicemembers and their 
families in Korea, enhance operational readiness on the Peninsula, and 
demonstrate U.S. commitment to an enduring U.S. presence in the ROK.
    Question. What is your assessment of Beijing's relative influence 
over Pyongyang?
    Answer. As North Korea's closest neighbor and historic ally, 
China's influence has waned in recent years. However, it still retains 
more influence than most. I believe that as the chair of the Six-Party 
Talks, China has used its influence to play an important role in our 
collective efforts along with Japan, the Republic of Korea, and Russia 
toward achieving stability in the region through the peaceful 
denuclearization of the Korean Peninsula.
    Question. What do you believe must occur within the framework of 
the Six-Party Talks to ensure North Korea discontinues its nuclear 
program, and what posture would you recommend in future negotiations on 
this subject?
    Answer. My understanding is that in accordance with the September 
2005 Joint Statement, the DPRK committed to abandoning its nuclear 
programs. Despite North Korea's recent statement of its intent to 
withdrawal from the Six-Party Talks and nullify any agreements, the 
United States should be prepared to resume negotiations to peacefully 
and verifiably denuclearize the Korean Peninsula.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea have a more regional mission?
    Answer. In accordance with the commitment to the Mutual Defense 
Treaty, U.S. presence on the Korean Peninsula serves to deter potential 
aggressors from taking hostile actions that would threaten the peace 
and security of the Republic of Korea. This presence has both deterred 
further war on the Korean Peninsula and contributed to the stability of 
the Northeast Asia region. The U.S.-ROK Alliance is transforming to 
ensure a capable and relevant forward presence for the future security 
environment. As ROK military forces have served and will continue to 
serve with the U.S. military in places off of the Peninsula (e.g., 
Iraq, Afghanistan, and in the Gulf of Aden), the U.S.-ROK Alliance will 
continue to serve an important role regionally and globally.
                                 japan
    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. The U.S.-Japan relationship is the cornerstone of security 
in East Asia. Japan is a valued ally and anchor of democracy and 
prosperity in the region. Our alliance has held fast through the 
turbulence of the post-Cold War, political turnover in Japan, and some 
contentious trade disputes and now stands poised to become a truly 
global alliance. The United States and Japan are in the middle of a 
complicated realignment process that is part of a larger Alliance 
Transformation agenda that also includes a review of roles, missions, 
and capabilities to strengthen and ensure the relevance, capability, 
and cohesiveness of the Alliance for the next several decades. This is 
an ambitious agenda that is worthy of attention and increased effort.
    Question. How would you characterize Japan's relationship with its 
regional neighbors, mainly China, North Korea and South Korea?
    Answer. I believe it is important for Japan to continue to 
cultivate constructive relations with all of its neighbors. By moving 
forward, Japan and other East Asian nations can increase their security 
cooperation. Working with other U.S. allies and friends in the region, 
Japan can increase its contribution to peace, security, and prosperity 
throughout Asia and globally. Japan is a valued and essential partner 
in the Six-Party Talks process and in other important regional security 
architectures.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. The security environment in Asia is changing and the United 
States needs a more capable alliance with Japan to deal with those 
challenges, including greater interoperability between armed forces at 
the strategic, operational, and tactical levels. If confirmed, I would 
work to encourage Japan's increasing contributions to the Alliance, 
both regionally and globally. Cooperation and the development of 
complementary and mutually reinforcing capabilities should range from 
missile defense to increased bilateral training opportunities--in Guam, 
for example.
    Question. What is your view of the United States-Japanese joint 
development of the Standard Missile-3, Block IIA missile defense 
interceptor, and of the overall program of cooperation between the 
United States and Japan on ballistic missile defense?
    Answer. As we recently witnessed in the run up to the TD-2 launch, 
ballistic missile defense cooperation with Japan is a success story for 
the Alliance and has resulted in Japan's fielding of both sea- and 
land-based missile defense systems. U.S.-Japan bilateral cooperation on 
ballistic missile defense plays an important role in supporting our 
common strategic objectives on defense. The SM-3 Block IIA is an 
important cooperative program that will result in a significant 
increase in SM-3 capability.
    Question. Should the United States be doing anything more to 
encourage the Japanese Government to increase their participation in 
ongoing military operations, such as Operation Enduring Freedom and 
Operation Iraqi Freedom, or future operations?
    Answer. Japan is considering how to conduct international security 
missions with its very capable Self-Defense Force while keeping its 
Asian neighbors' historical concerns over the Japanese exercise of 
military power in mind. The overall trend has been positive, but slow. 
The deployment of Japanese Maritime Self-Defense Force destroyers to 
the Horn of Africa to conduct escort operations to protect shipping 
from piracy is another step forward. The Department is looking forward 
to the dispatch of P-3Cs to join the counterpiracy mission, Japan's 
first-ever ``joint'' deployment.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and the costs associated with the continued presence of U.S. forces in 
Japan equitable and appropriate? Why or why not?
    Answer. I believe the cost arrangement between the United States 
and Japan as outlined in the May 2006 Security Consultative Committee 
(SCC) document known as the Realignment Roadmap is equitable and 
appropriate. For relocations within Japan, the GOJ is paying the lion's 
share of the costs to develop new facilities. The GOJ also understood 
the strong desire of Okinawa residents for the relocation of forces 
from Japan to Guam to occur rapidly and recognized that this move--
which it explicitly sought--would not happen anytime soon without 
substantial investment on its part. Spending less than one percent of 
its gross domestic product on its national defense, yet desiring the 
continued regional presence of U.S. forces, Japan could also clearly 
justify financial support for U.S. military construction within a U.S. 
territory on the grounds that it is making a direct contribution to 
Japan's own security and to overall alliance burdensharing. This 
decision was not without controversy in Japan, as it is highly 
unusual--perhaps even unprecedented--for a host country to pay for U.S. 
forces to relocate out of that country. It will be important for the 
DOD to work closely with the GOJ on project scope, management, and 
other factors to minimize risks to the efforts.
                  counterterrorism in south east asia
    Question. Admiral Keating, Commander, USPACOM, has described South 
East Asia as ``the central front against terrorism in the Pacific.'' 
Indeed, the rise of Islamic militants in this region poses an ever-
increasing threat to security and stability throughout the Asia-Pacific 
theater.
    What more can the United States do in South East Asia to help 
combat the threat of terrorism?
    Answer. The DOD plays an important supporting role in combating 
terrorism, mainly by helping build capacity in partner nation's armed 
forces through security assistance and security cooperation programs. 
If confirmed, I will work closely with the State Department's Office of 
the Coordinator for Counter-Terrorism (S/CT) which has primary lead on 
counterterrorism assistance.
    Question. Which South East Asian countries are most important in 
the fight against terrorism in that region and what should the United 
States do to enhance our relations with those countries?
    Answer. Again, because of the prominent interagency role in 
building partner-nation counterterrorism capacity, especially on the 
law enforcement side, the Department of State Office of the Coordinator 
for Counterterrorism plays the critical role in synchronizing the 
efforts of the U.S. Government. It is my understanding that the U.S. 
Government takes a regional approach to counter terrorism and 
encourages intelligence cooperation and law enforcement cooperation 
within the region. For the DOD, Indonesia, and the Philippines should 
be the top priorities for counter terrorism capacity-building 
assistance in Southeast Asia, notably through National Defense 
Authorization Act (NDAA) Section 1206-funded programs, which remains 
one of the Department's most effective tools in building partner 
capacity to combat terrorism. The Department enjoys good relations with 
Indonesia and the Philippines and, in close consultation with Congress 
and the Department of State, should sustain and enhance these 
relationships through continued policy dialogues, security cooperation 
and security assistance programs.
    Question. How do you assess the security situation in the Strait of 
Malacca and what can the United States do to better protect this 
important trade route?
    Answer. The security situation in the Strait of Malacca has 
improved due largely to more effective coordination between the 
Governments of Indonesia, Malaysia, Singapore, and Thailand. The United 
States has also contributed to improved security through NDAA Section 
1206-funded programs in Indonesia and USPACOM's robust security 
cooperation outreach in the region aimed at improving maritime 
security. It is important that the United States continue to work with 
regional governments and militaries to safeguard this critical trade 
route.
    Question. What improvements or changes would you make to the 
Proliferation Security Initiative (PSI)?
    Answer. If confirmed, I would recommend that PSI should continue, 
and, I would work with the appropriate offices within the Office of the 
Secretary of Defense to turn PSI into a ``durable international 
institution'' as President Obama called for during his April 5, 2009, 
speech in Prague. I would defer recommendations on improvements or 
changes to the incoming Assistant Secretary of Defense for Global 
Strategic Affairs, which manages PSI for the DOD.
                      republic of the philippines
    Question. What is your view of the current state of U.S.-Philippine 
military-to-military relations?
    Answer. The Philippines is one of the United States' five treaty 
allies in East Asia and is a committed bilateral and regional partner 
in combating terrorism. The alliance remains strong and the Philippines 
remain important to the United States and to regional stability in 
general. I believe the top two defense priorities with the Philippines 
should be counterterrorism cooperation and defense reform.
    Question. What is your assessment of U.S. military efforts in the 
Philippines and the effectiveness of the U.S. assistance being provided 
to the Philippine military in its fight against insurgent groups?
    Answer. The U.S military is working effectively with the Armed 
Forces of the Philippines to provide assistance that is consistent with 
Philippine Constitutional restrictions on foreign forces. The 
Philippine Armed Forces continue to professionalize and reform in a 
manner consistent with U.S. and Philippine defense goals and 
objectives. They benefit from various security assistance programs, 
exercises, and engagement opportunities that develop capacity and 
capability with their military. These efforts have resulted in numerous 
strides against Abu Sayaf Group and Jemah Ismaliya terrorists in the 
Southern Philippines and have resulted in better regional maritime 
security cooperation.
    Question. What do you believe the U.S. goals should be in the 
Philippines and how best can we achieve those goals?
    Answer. U.S. Defense goals are to deny safe haven, sanctuary and 
training areas for Abu Sayaf Group and Jemah Ismaliya terrorists; and 
to partner in cooperative regional maritime security programs. These 
goals are best achieved through existing U.S. Government security 
assistance and security cooperation programs.
    Question. What policy guidelines, if any, would you establish, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat or law enforcement in the Republic of the Philippines?
    Answer. The established current policy guidelines are clear: the 
Mutual Defense Treaty and the Visiting Forces Agreement guide bilateral 
policy with the Republic of Philippines. The Philippine Constitution 
prevents foreign forces from conducting combat operations in the 
Philippines. Deployed U.S forces will continue to be in strict 
compliance with these strictures.
                               indonesia
    Question. Indonesia is a key Asian power, and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible.
    What is your understanding of the extent to which the Indonesian 
Government is cooperating with the United States in the war on 
terrorism?
    Answer. If confirmed, I would consult with the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict and 
Interdependent Capabilities on this question. Based on my current 
understanding, I believe that the Government of Indonesia has 
cooperated closely and effectively with the United States and our 
allies in combating global terrorist networks in the region, 
particularly against Jema'a Islamiya.
    Question. What is your view of the current state of military-to-
military contacts with Indonesia?
    Answer. Current military-to-military contacts with Indonesia are 
positive and expanding. I believe that enhanced military contacts with 
the Indonesian military (TNI) can help cement the recent progress we 
have seen on human rights, particularly in conflict areas such as Aceh 
and Papua, maritime security and military reforms. I also appreciate 
Indonesia's contribution to peacekeeping operations--including Lebanon. 
Going forward, I would like to see military-to-military contacts with 
Indonesia deepen through a series of regular, predictable exercises and 
engagements.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military contacts, in close consultation with Congress and the 
Department of State.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. The Government of Indonesia continues to make progress in 
military reform. Early progress toward defense reform--separation of 
the police from the military, eliminating formal political roles for 
the TNI, increasing accountability, and human rights training--has been 
sustained. Continued progress on the divestiture of TNI businesses 
would be unmistakable evidence of Indonesia's commitment to reform. The 
2002 Defense Law and the 2004 TNI Law formally codified the roles and 
responsibilities of the TNI as a mechanism to support, not replace, 
civilian government. Continued ``hard'' reforms that the United States 
should continue to push for include full accountability for past human 
rights abuses, strengthening civilian control, putting the TNI fully 
``on budget'', and continued professionalization of the TNI officer 
corps. It also worth noting the TNI's professional conduct during 
recently completed parliamentary elections.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I would sustain efforts of encouraging 
professionalism within the military in terms of both human rights 
respect and accountability, through bilateral security discussions, 
joint training, military assistance and military training programs. 
U.S. security assistance and security cooperation programs are the most 
effective channels to encourage professionalism in the Indonesian 
military.
                              war on drugs
    Question. The DOD serves as the single lead agency for the 
detection and monitoring of aerial and maritime foreign shipments of 
drugs flowing toward the United States. In recent years, DOD has sought 
to expand the list of countries eligible for counternarcotics train and 
equip assistance authority (e.g. Section 1033) to combat drug 
trafficking in the Asia-Pacific.
    What is your assessment of the drug trafficking threat emanating 
from the Asia-Pacific region?
    Answer. South and Southeast Asia have become increasingly more 
attractive as bases for drug trafficking organizations' production and 
smuggling operations. Several Asian and Pacific nations have 
experienced a significant increase in the production, trans-shipment, 
trafficking, and consumption of narcotics in recent years. 
Methamphetamine produced using diverted precursor chemicals, heroin 
trans-shipment through Asia, poppy cultivation, and potential 
narcoterrorist funding remain the primary drug threats to the United 
States from the Asia Pacific region.
          humanitarian assistance and disaster relief (ha/dr)
    Question. You have been quoted as saying that ``[h]umanitarian 
assistance and disaster-relief (HA/DR) operations contribute directly 
to the [Asia-Pacific] region's common stability and security'' and that 
``[m]ilitary involvement is often essential''.
    What is your assessment of the U.S. military contributions to HA/DR 
in the Asia-Pacific region?
    Answer. The Asia-Pacific region has experienced some of the worst 
natural disasters in recent history and threatens to give the world an 
even greater calamity--an avian influenza pandemic. In support of USAID 
and the U.S. Government's broader relief efforts, DOD has played an 
instrumental role in the international response to recent Asian 
disasters (in Burma, Philippines, Bangladesh, China) and is deeply 
involved in interagency disaster preparedness/mitigation planning 
efforts.
    DOD's HA/DR efforts have provided unique military capabilities 
(strategic airlift, logistics, transportation, communication) and have 
made significant contributions to security in the region by saving 
lives, reducing human suffering, helping to build partner capacities, 
and preventing crisis from becoming conflicts thereby increasing 
security and stability in the region.
    Question. In your view, what should the United States do to enhance 
HA/DR efforts in the region?
    Answer. In my view, DOD's HA/DR efforts in the region could be 
enhanced through improved civilian-military cooperation and 
collaboration. Successful civilian-military collaboration reduces 
duplication of efforts, facilitates communication and information 
sharing, and increases the military's effectiveness in providing 
urgent, lifesaving capabilities in the immediate aftermath of a 
disaster abroad.
    prisoner-of-war (pow)/missing-in-action (mia) accounting efforts
    Question. The Joint POW/MIA Accounting Command is critical to the 
recovery and identification of remains of missing military members. 
Recovery of remains of U.S. servicemembers from World War II, the 
Korean War, and the Vietnam war continue to be a very high priority. In 
2005, the DOD suspended U.S. cooperation with North Korea on recovery 
and identification of the remains of U.S. personnel, citing concern for 
the security of U.S. personnel in North Korea.
    In your view is there any reason why we should not now resume 
cooperation with North Korea to recover the remains of U.S. personnel?
    Answer. I believe these efforts should resume once appropriate 
conditions exist that both enable the United States to carry out this 
important mission and to take all possible precautions to ensure the 
safety of U.S. personnel.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts in the PACOM area of responsibility?
    Answer. If confirmed, I will work closely with the Deputy Assistant 
Secretary for POW/Missing Personnel Affairs to ensure that APSA 
continues its strong support for this mission and provides all 
necessary assistance to enhance cooperation with the relevant 
countries.
    Question. If confirmed, what steps would you take, if any, 
specifically with regard to recovery efforts in North Korea?
    Answer. If confirmed, I will work closely with the Deputy Assistant 
Secretary for POW/Missing Personnel Affairs, U.S. Pacific Command, the 
State Department, and all other organizations involved to provide 
advice and support whenever necessary.
                        foreign language policy
    Question. In 2005, the Department of Defense approved the Defense 
Language Transformation Roadmap to improve the Department's foreign 
language capability and regional area expertise. Since then, the 
Department has been working toward implementing that roadmap.
    How many Mandarin and/or Cantonese speakers does the Department of 
Defense have in intelligence analyst positions?
    Answer. I have not had an opportunity to examine this issue in 
detail. If confirmed, I will research this issue and look forward to 
working with Congress to ensure the Department of Defense builds 
sufficient foreign language capability and regional area expertise.
    Question. Is this number sufficient to ensure good intelligence 
assessments for use by the Office of Asian and Pacific Security 
Affairs?
    Answer. I have not had an opportunity to examine this issue in 
detail. If confirmed, I will research this issue and look forward to 
working with Congress to ensure the Department of Defense builds 
sufficient foreign language capability and regional area expertise.
    Question. In your view, how should the Federal Government expand 
the foreign language skills of civilian and military personnel in order 
to improve the quality of intelligence input to, and policy output by, 
the Office of Asian and Pacific Security Affairs?
    Answer. I have not had an opportunity to examine this issue in 
detail. If confirmed, I will research this issue and look forward to 
working with Congress to ensure the Department of Defense builds 
sufficient foreign language capability and regional area expertise.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Asian and Pacific Security Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Thune
                fiscal year 2010 defense budget proposal
    1. Senator Thune. General Gregson, on April 6, Secretary Gates 
announced significant changes in the fiscal year 2010 defense budget 
proposal. Some of the most significant changes deal with canceling some 
programs, prematurely ending production of others, or putting other 
programs on hold--as is the case for the Combat and Rescue X (CSAR-X), 
the F-22, and the Next Generation Bomber, respectively. This 
announcement came 2 weeks prior to the Department announcing the start 
of the 2010 Quadrennial Defense Review (QDR) and Nuclear Posture Review 
(NPR). As future policy advisors to the Secretary, I would like to get 
your opinions on whether or not these most recent budget decisions were 
indeed informed policy decisions. Before making such significant 
changes, wouldn't these important changes benefit from the knowledge 
gained by the QDR and the NPR?
    General Gregson. Yes, Secretary Gates' most recent budget decisions 
were informed policy decisions. He reached these decisions after 
consultations with the President, and with the military and civilian 
leadership of the Department of Defense. On his Defense Budget 
Recommendation Statement on 6 April 2009, Secretary Gates described 
these decisions as the product of ``a holistic assessment of 
capabilities, requirements, risks and needs for the purpose of shifting 
the department in a different strategic direction.''
    Secretary Gates announced significant changes in the fiscal year 
2010 defense budget proposal and he wants that the QDR and the NPR 
inform programs affected by these decisions. Some of the programs were 
halted or delayed and others cancelled to allow the Department to 
reassess the needs that these programs are supposed to meet. The 
Department will consider the outcome of major defense reviews and arms 
control negotiations in this process. Clear examples of this approach 
are the three programs you addressed in this question.
    First, to sustain U.S. air superiority, Secretary Gates committed 
to build a fifth generation of tactical fighters capability that can be 
produced in quantity at sustainable cost. He recommended increasing 
investment on the F-35 Joint Strike Fighter and ending production of 
the F-22 fighter at 187. Second, he placed the Next Generation Bomber 
on hold to first assess the requirements, develop a better 
understanding of the technology and of other capabilities we might have 
for this mission, and to incorporate the outcome of the QDR, the NPR 
and the Strategic Arms Reduction Treaty follow-on negotiations. 
Finally, Secretary Gates recommended terminating the Air Force CSAR-X 
helicopter program. This program has a history of acquisition problems 
and is another example of single-service solution with a single-purpose 
aircraft for an important mission affecting all Services. The 
Department will reassess the requirements and develop a more 
sustainable approach.

          importance of long-range strike to future operations
    2. Senator Thune. General Gregson, last month Lieutenant General 
Maples, the Director of the Defense Intelligence Agency, testified 
before this committee. During that hearing, I asked about his 
assessment of China's modernization programs that threaten the way the 
United States projects power in the Pacific region. General Maples 
said, ``China has developed a very modern layered air defense 
capability in depth and is seeking additional air defense capabilities 
that will project even out to a range of 400 kilometers. It 
significantly affects potential U.S. operations in that region.'' 
Coupled with China's investment in asymmetric capabilities such as 
cyber warfare, anti-satellite warfare, and anti-ship weaponry, China's 
modernization programs gravely threaten potential U.S. operations in 
the Pacific region. Do you agree that long-range systems able to 
penetrate sophisticated air defenses will be necessary to ensure the 
United States maintains its ability to project power in the Pacific 
region in future years?
    General Gregson. Developing long-range systems able to penetrate 
modern integrated air defense systems is an important element of the 
U.S. deterrence and warfighting capability. I agree with Secretary 
Gates that these capabilities are necessary and that we will probably 
need to develop these capabilities further. However, the decision to 
pursue long-range systems must depend upon careful analyses that 
examine which types of long-range capabilities are most appropriate to 
deter and defeat emerging security challenges. Being flexible and 
avoiding staid projections of thinking in the research and development 
process will help us get this analysis right. The NPR and the QDR, two 
major studies currently underway within the Department of Defense, will 
help clarify the capabilities the United States will require to 
maintain our ability to protect U.S. interests, allies, and partners.

    3. Senator Thune. General Gregson, given this future environment, 
how important is it that the Air Force continues plans to field the 
Next Generation Bomber by 2018?
    General Gregson. As in the case of the future of long-range systems 
able to penetrate sophisticated air defenses, I agree with Secretary 
Gates that the question of the Next Generation Bomber should be a part 
of the analysis conducted under the QDR and the NPR.
                                 ______
                                 
    [The nomination reference of Wallace C. Gregson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Wallace C. Gregson, of Colorado, to be an Assistant Secretary of 
Defense, vice James Shinn.
                                 ______
                                 
    [The biographical sketch of Wallace C. Gregson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
    Biographical Sketch of Lt. Gen. Wallace C. Gregson, USMC (Ret.)
    Since 2006, Lieutenant General Gregson (USMC, Retired) has been a 
foreign policy and military affairs consultant for WCG & Associates 
International. Previously he served as Chief Operating Officer for the 
U.S. Olympic Committee. From 2003 to 2005 he was Commanding General of 
the Marine Corps Forces Pacific and Marine Corps Forces Central 
Command, where he led and managed over 70,000 marines and sailors in 
the Middle East, Afghanistan, East Africa, Asia, and the United States. 
From 2001 to 2003 he served as Commanding General of all Marine Corps 
forces in Japan, where he was awarded the Japanese Order of the Rising 
Sun, the Gold and Silver Star, and the Korean Order of National 
Security Merit Gukseon Medal. Prior to his time in Japan he was 
Director of Asia-Pacific Policy in the Office of the Secretary of 
Defense from 1998 to 2000. He has served in the Marine Corps since his 
graduation from the U.S. Naval Academy in 1968, and is a combat veteran 
earning the Bronze Star with Combat ``V'' device for valor and heroism, 
and also awarded the Purple Heart.
    He is a member of the Council on Foreign Relations; the Pacific 
Council on International Policy; the International Institute for 
Strategic Studies; the U.S. Naval Institute; and the Marine Corps 
Association.
    His civilian education includes a Bachelor's degree from the U.S. 
Naval Academy, Master's degrees in Strategic Planning from the Naval 
War College and International Relations from Salve Regina College. He 
was awarded an Honorary Doctorate in Public Service by the University 
of Maryland, University College.
    General Gregson and his wife Cindy currently reside in Colorado. 
They have two sons, one serving as a Marine Corps officer.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Wallace C. 
Gregson in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Wallace C. Gregson, Jr., ``Chip''.

    2. Position to which nominated:
    Assistant Secretary of Defense for Asian and Pacific Security 
Affairs.

    3. Date of nomination:
    April 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 31, 1946; Pittsburgh, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cynthia Ann Gregson. Maiden Name: Graham.

    7. Names and ages of children:
    Benjamin Wallace Gregson, 29.
    Nicholas Scott Gregson, 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Valley Forge Military Academy, 1962-1964, high school diploma.
    U.S. Naval Academy, 1964-1968, Bachelor of Science; 5 June 1968.
    Salve Regina College, Master of Arts; 17 May 1987.
    U.S. Naval War College; 1986-1987, Master of Arts; June 1991.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    U.S. Marine Corps officer, 1968-2005.
    1999-2000, served as Director, Asia Pacific, Office of the 
Secretary of Defense.
    2000-2001, served as Commanding General, 3d Marine Division, 
Okinawa, Japan.
    2001-2003 served as Commanding General, III Marine Expeditionary 
Force, Okinawa, Japan.
    2003-2005, served as Commander, Marine Corps Forces Pacific and 
Marine Corps Forces Central Command, Camp H M Smith, HI.
    September 2005-April 2006, Chief Operating Officer, U.S. Olympic 
Committee, Colorado Springs, CO.
    April 2006 to present, owner of WCG & Associates International, 
LLC, a consulting firm, Colorado Springs, CO.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Consultant to Governor Benigno Fitial, Commonwealth of the Northern 
Mariana Islands (CNMI) and the CNMI Military Task Force; April 2007-
November 2008.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Vice president, NOETIC Corporation.
    Trustee, Marine Corps University Foundation.
    Treasurer, Injured Marine Semper Fi Fund.
    Officer, Global Relief Technologies, Inc.
    Advisor, Center for Unconventional Security Affairs, University of 
California Irvine.
    Advisor, Center for a New American Security.
    Honorary Advisor, Okinawa International Development Council.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Council on Foreign Relations.
    Member, Marine Corps Association.
    Member, U.S. Naval Institute.
    Member, International Institute of Strategic Studies.
    Member, Pacific Council on International Policy.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    James Webb, August 2006, $2,100, campaign for Senate.
    Joseph Bouchard, May 2007, $250, campaign for Virginia House of 
Representatives.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Defense Distinguished Service Medal.
    Defense Meritorious Service Medal.
    Legion of Merit (3).
    Bronze Star with Combat ``V''.
    Purple Heart.
    Honorary Ph.D., Public Service, University of Maryland University 
College, Okinawa, Japan.
    Japanese Order of the Rising Sun, Gold and Silver Star.
    Korean Order of National Security Merit Gukseon Medal. .

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Asia Now, Winning the War of Ideas; U.S. Naval Institute 
Proceedings; February 2004.
    Ready, Fire, Aim; U.S. Naval Institute Proceedings; April 1996.
    Ideological Support, Attacking the Critical Linkage, Chapter 2 of 
The Struggle Against Extremist Ideology; Center for Strategic 
Leadership, the U.S. Army War College; August 2005.
    Overseas Presence, Maintaining the Tip of the Spear; Marine Corps 
Gazette; April 1999.
    PP&O Responds; Marine Corps Gazette; September 1997.
    Big Change; Marine Corps Gazette; December 1994.
    A Tale of Two States; Marine Corps Gazette; December 1994 (with 
Frank Hoffman).
    Keeping Up with Navy Doctrine; Marine Corps Gazette; December 1990.
    Sea Based Indirect Warfare; Marine Corps Gazette; May 1990.
    Remembering the Maritime Side; Marine Corps Gazette; August 1989.
    Portrait of the Arabs; Marine Corps Gazette; November 1987.
    CPs, Softest Target on the Battlefield; Marine Corps Gazette; 
August 1985.
    Forward, Rule Number Two by Dr. Heidi Kraft; Little Brown and 
Company; 2007.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Remarks at Armed Forces Communications and Electronics Association 
(AFCEA) TechNet Asia-Pacific 2004, November 10, 2004, Royal Hawaiian 
Hotel, Waikiki, HI, MARFORPAC Breakfast.
    Remarks at the U.S. Army War College, June 5, 2008, Carlisle, PA.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Wallace C. Gregson.
    This 27th day of April, 2009.

    [The nomination of Wallace C. Gregson was reported to the 
Senate by Chairman Levin on May 6, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 7, 2009.]
                              ----------                              

    [Prepared questions submitted to Jo-Ellen Darcy by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Civil Works?
    Answer. The duties and functions of the Assistant Secretary of the 
Army for Civil Works are specified in section 3016 of title 10 of the 
U.S.C. and Department of the Army General Orders No. 3, dated July 9, 
2002 and General Orders No. 13, dated October 29, 2004. Section 3016 of 
title 10 states that the Assistant Secretary of the Army (Civil Works) 
``shall have as his principal duty the overall supervision of the 
functions of the Department of the Army relating to programs for 
conservation and development of the National water resources, including 
flood damage reduction, river and harbor navigation, environmental 
restoration and protection, water supply, shore protection, 
hydroelectric power, recreation, and related purposes.''
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have served in a variety of governmental and legislative 
senior positions responsible for formulating and implementing energy, 
environmental and conservation laws and policies. I currently serve as 
the Senior Environmental Advisor to the U.S. Senate Committee on 
Finance, working to develop energy, environmental and conservation 
initiatives through the tax code. Previously, I served as the Senior 
Policy Advisor, Deputy Staff Director and Professional Staff on the 
U.S. Senate Committee on Environment and Public Works. Both of these 
positions have afforded me the opportunity to work closely with the 
U.S. Army Corps of Engineers and Office of the Assistant Secretary of 
the Army (Civil Works) officials and to develop a keen appreciation for 
the scope, complexity and challenges facing them today.
    I have served in a number of other governmental positions that 
provided me with leadership and management skills necessary to be 
effective in this important position. These include serving as the 
Executive Director at the Great Lakes and Water Resources Planning 
Commission in Michigan, as the Assistant to the Director of Personnel 
for Gubernatorial Appointments for the Governor of Michigan and as a 
Legislative and Policy Analyst in the U.S. House of Representatives 
Banking Subcommittee on Economic Stabilization.
    I have come to understand how large organizations function, to work 
within the parameters of plans, programs, and budgets, and to face and 
overcome challenges. I have had the privilege of building strong, 
effective relationships with Senators, congressional staff, key 
officials within the executive department, including the Department of 
Defense, the Army Corps of Engineers, and civil works stakeholders.
    I hold a Master of Science degree in Resource Development from 
Michigan State University and a Bachelor of Science degree from Boston 
College. My education and experiences have given me a broad base of 
knowledge to lead in the development of sound processes, practices, and 
policies to execute the critical mission of Army civil works.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Civil Works?
    Answer. If confirmed, I would take several actions to enhance my 
expertise as Assistant Secretary of the Army (Civil Works). My goal 
would be to travel to each Corps of Engineers division to see first-
hand the infrastructure development and environmental restoration 
projects to fully understand the planning, design, construction, 
operation and maintenance of these projects. I also intend to reach out 
to Members of Congress, other Federal agencies, State and local 
interests, study and project sponsors, and other stakeholders to 
understand their perspectives in areas of mutual concern. I would also 
work to develop a close relationship with other offices within the 
Department of the Army and the Department of Defense to make better use 
of resources and advance the interests of the Civil Works program.
    I also will work closely with the Chief of Engineers and the Deputy 
Commanding General for Civil and Emergency Operations to ensure that I 
am fully informed and prepared to address the important issues I would 
oversee as Assistant Secretary of the Army (Civil Works).
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If I am confirmed, I expect to carry out the duties and 
functions of the Assistant Secretary of the Army (Civil Works) as 
articulated in General Orders No. 3, dated July 9, 2002 and General 
Orders No. 13, dated October 29, 2004. In addition, I expect to support 
and assist the Secretary of the Army in carrying out critical 
departmental responsibilities, including Continuity of Operations.
                             relationships
    Question. Please describe how you envision your working 
relationship, if confirmed, with the following:
    The Secretary of the Army.
    Answer. If confirmed, I expect the Secretary of the Army will 
discuss the roles and responsibilities he wishes me to assume in 
furthering the goals and priorities of the Secretary of Defense and the 
President. Consistent with the statutory responsibilities of the 
Assistant Secretary of the Army for Civil Works and the 
responsibilities and authorities assigned under the General Orders of 
the Army, I expect the Secretary will rely on me to oversee the Civil 
Works program of the Army Corps of Engineers, the programs of Arlington 
National Cemetery and Soldiers' and Airmen's Home National Cemetery.
    Question. Under Secretary of Defense for Logistics and Materiel 
Readiness.
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Logistics, Materiel Readiness) in areas of shared 
responsibility.
    Question. The Under Secretary of the Army.
    Answer. If confirmed, I will work closely with the Under Secretary 
of the Army in furthering the goals and priorities of the President and 
the Secretary of the Army.
    Question. Deputy Under Secretary of Defense for Installations and 
Environment.
    Answer. If confirmed, I will work closely with the Deputy Under 
Secretary of Defense (Installations and Environment) in areas of shared 
responsibility.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. If confirmed, I will work closely with the Assistant 
Secretary of Defense for Homeland Defense in areas of shared 
responsibility.
    Question. The Assistant Secretary of the Army for Installations and 
Environment.
    Answer. If confirmed, I will work closely with the Assistant 
Secretary for Installations and Environment in areas of shared 
responsibility, such as land acquisition for civil works projects. I 
will develop a cooperative relationship as we carry out the respective 
duties assigned to us by the Secretary of the Army to protect and 
preserve the environment and manage the Army's resources under our 
stewardship.
    Question. The Chief of Staff of the Army and the Army Staff.
    Answer. If confirmed, I will work closely with the Chief of Staff 
of the Army and the Army Staff. I expect to coordinate closely with the 
Army Staff regarding our responsibilities relating to the duties of the 
Chief of Engineers.
    Question. The Chief of Engineers.
    Answer. If confirmed, I will develop a close working relationship 
with the Chief of Engineers as we work effectively to manage the 
Nation's Civil Works programs and projects, remaining mindful of my 
oversight responsibility under the law and the Army General Orders. I 
believe the interests of the Nation are best served when the 
relationship between the Assistant Secretary of the Army (Civil Works) 
and the Chief of Engineers is based on mutual respect, trust, and 
cooperation. Both positions have enormous responsibilities and demand 
focused attention to very complex issues. Our respective abilities to 
respond to the President's priorities and carry out laws enacted by 
Congress will depend heavily on the success of this relationship.
    Question. State Governors.
    Answer. The execution of the Corps of Engineers civil works mission 
often demands a balancing of diverse interests. The proper 
reconciliation of these interests requires an understanding of the 
Corps' authorities and legal responsibilities and open communication 
among all parties. If I am confirmed, I am committed to working 
cooperatively with the Governors of the States for the public interest, 
and I pledge to establish and maintain a full dialogue with the 
Governors of the States on all issues that we must cooperatively 
address.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Civil Works?
    Answer. Communities across the country rely on Army Corps of 
Engineers water resources projects to reduce flood damages, to enable 
efficient competition in world trade, to provide needed water and 
power, and to protect and restore our rich environmental resources. The 
Civil Works program provides a sound investment in the Nation's 
security, economic future, and environmental stability. I believe the 
greatest continuing water resources challenge is to find sustainable 
ways to strengthen the Nation's economy, while protecting and restoring 
unique water and related land resources for the benefit of future 
generations.
    Two other challenges the Corps faces are the need to maintain its 
existing water infrastructure and to repair damages to the natural 
environment. An efficient water transportation system is critical if we 
are to remain competitive in international trade. Our system of ports 
and inland waterways enable us to efficiently transport goods in an 
environmentally acceptable manner.
    Flooding also continues to threaten communities. We should use the 
Corps limited resources not only to respond to natural disasters when 
floods and hurricanes occur, but also to work more creatively with 
nature to prevent or reduce flood damages.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed I would expect the Secretary of the Amy and I 
to work together to define the appropriate role for the Corps of 
Engineers in addressing these problems. The challenges the Nation faces 
are complex, and there are many difficult decisions to make. It is of 
paramount importance that we bring all interests to the table and that 
all have a voice in the development of solutions to our Nation's 
problems. The Army Corps of Engineers should always engage in an open 
and cooperative dialogue with Congress, other Federal agencies, States, 
Tribes and local governments in addressing those important challenges 
where the Corps can contribute to solutions for the Nation.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
for Civil Works?
    Answer. The Assistant Secretary of the Army for Civil Works has 
wide-ranging responsibilities arising from the varied purposes of the 
Civil Works Program. I believe the Assistant Secretary should continue 
and improve its efforts to clearly establish and communicate policy and 
direction so the Corps can effectively execute its important Civil 
Works mission and to ensure continued broad support within the 
Department of Defense and the Department of the Army for the national 
cemeteries program.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, one of my first priorities will be to meet 
with the Chief of Engineers and others in the administration and 
Congress to seek their input on how the Corps can best meet the 
Nation's water resources needs.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Army for Civil Works?
    Answer. If confirmed, I will work to improve the management and 
administration of the Army Civil Works Program and the Army's national 
cemetery program and would seek ways to more efficiently use Army's 
resources in the development and execution of these programs.
           civilian oversight of the army corps of engineers
    Question. What is your view of the relative authority of the Chief 
of Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works function of the Army Corps of 
Engineers?
    Answer. My view of the relative authority of the Chief of 
Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works function of the Army Corps of 
Engineers follows:
Secretary of Defense
    The Secretary of Defense has full authority, direction, and control 
over all elements of the Department of Defense. He exercises this power 
over the Corps of Engineers through the Secretary of the Army, whose 
responsibility for, and authority to conduct, all affairs of the Army 
is subject to the authority, direction and control of the Secretary of 
Defense. If confirmed, I will cooperate fully with the Secretary of 
Defense in fulfilling the administration's national defense priorities 
and efficiently administering the Corps of Engineers in accordance with 
the policies established by the Office of the Secretary of Defense.
The Secretary of the Army
    As head of the Department of the Army, the Secretary of the Army is 
responsible for, and has the authority necessary to conduct all affairs 
of the Department of the Army. He may assign functions, powers and 
duties as he considers appropriate to the Under Secretary of the Army, 
as well as the Assistant Secretaries of the Army, and require officers 
of the Army to report to these officials on any matter.
The Chief of Staff of the Army
    The Chief of Staff of the Army performs his duties under the 
authority, direction, and control of the Secretary of the Army and is 
directly responsible to the Secretary. The Chief of Staff also performs 
the duties prescribed for him by law as a member of the Joint Chiefs of 
Staff. If confirmed, I will establish and maintain a close, 
professional relationship with the Chief of Staff. I will communicate 
with him directly and openly as he performs his prescribed duties.
The Assistant Secretary of the Army for Civil Works
    The Assistant Secretary of the Army for Civil Works is principally 
responsible for the overall supervision of the Army's civil works 
program, including flood damage reduction, river and harbor navigation, 
environmental restoration and protection, water supply, shore 
protection, hydroelectric power, recreation and related purposes. The 
complex issues that arise in these areas demand a close, professional 
relationship between the Assistant Secretary and the Chief of 
Engineers, based on mutual respect, trust, cooperation and full and 
open communication. The Assistant Secretary also is responsible for the 
program and budget of the Army national cemeteries, namely Arlington 
National Cemetery and the Soldiers' and Airmen's Home National 
Cemetery. If I am confirmed, I am committed to establishing and 
maintaining close professional relationships with all officials who 
share and are responsible for aspects of these programs, in order to 
respond effectively to the President's priorities and laws enacted by 
Congress.
The Chief of Engineers
    As a member of the Army Staff, the Chief of Engineers reports to 
the Chief of Staff, through the Vice Chief of Staff, with respect to 
military matters. The Chief of Engineers reports to the Assistant 
Secretary of the Army (Civil Works) on civil works functions of the 
Army, including those relating to the conservation and development of 
water resources and the support for others program. The Chief of 
Engineers also reports to the Assistant Secretary of the Army (Civil 
Works) with respect to reimbursable support for non-Defense agencies 
and for reimbursable international activities not directly in support 
of U.S. forces overseas. In the area of military installation 
activities, the Chief reports to the Assistant Secretary of the Army 
(Installations & Environment), who has principal responsibility for all 
Department of the Army matters related to installations and the 
environment.
    Question. In your view, does the Corps need to make fundamental 
changes in the way it operates? If so, what changes would you 
recommend?
    Answer. No. I believe the Corps is a fundamentally sound 
organization. It has strong technical abilities and has proven time and 
time again that it can solve difficult problems. It has served this 
Nation for many years and can be counted on to continue to do so in the 
future. However, the Corps should continually re-examine the way it 
manages policy and technical reviews in order to ensure projects will 
receive broad support. Also, the Corps should always seek better, more 
effective ways of communicating with the broad range of interests that 
have a stake in its projects.
    Question. If confirmed, what procedures would you follow regarding 
consultation with Congress prior to issuing any secretarial decisions 
or announcements regarding reforms that may affect the execution of the 
civil works and environmental functions of the Army Corps of Engineers?
    Answer. If confirmed, I will follow Departmental procedures 
regarding consultation with Congress that facilitate full and open 
communication among all interested parties, including the executive 
branch, Members of Congress, or the public. In performing my statutory 
duties, I intend to appropriately involve all interested parties and 
make decisions that take into account all relevant information.
    Question. What is your view of the role of the civilian and 
military leadership of the Army Corps of Engineers in developing goals 
for Corps programs and presenting these goals to the legislative 
branch?
    Answer. If confirmed, I will provide leadership to enable the Corps 
to continue to be a valuable asset to the Nation. Representing the 
administration, I will work with Congress to insure the proper 
direction for the Corps. I will work with the Corps' military and 
civilian leaders to establish and provide to the legislative branch 
appropriate Civil Works goals, and I will ensure that both the Office 
of the Assistant Secretary for Civil Works and the Corps continue to 
respond to requests for information from the legislative branch.
                integrity of corps of engineers projects
    Question. In November 2000, the Army Inspector General found that 
three Army Corps of Engineers officials had manipulated data in a cost-
benefit analysis in order to justify a $1 billion project.
    What steps have been taken since 2000 to ensure that projects are 
appropriately analyzed and justified?
    Answer. My understanding is that the Corps has made substantial 
changes to assure that projects are appropriately analyzed and 
justified. The Corps has strengthened its procedures for internal peer 
review and adopted procedures for external peer review that is both 
consistent with guidance issued by the Office of Management and Budget 
and responsive to directives contained in the Water Resources 
Development Act of 2007. Further, several years ago the Corps 
established the Civil Works Review Board as a means to vet Corps Civil 
Works project recommendations with the Corps senior leadership, Office 
of Management and Budget staff, as well as the Office Assistant 
Secretary of the Army (Civil Works) personnel in advance of completing 
Chief of Engineers reports. The Directorate of Civil Works several 
years ago created the Office of Water Project Review, which is separate 
from project development functions and, as I understand it, further 
strengthens the internal review procedures.
    Question. If confirmed, what further steps, if any, would you take 
to ensure integrity in the oversight of projects executed by the Army 
Corps of Engineers?
    Answer. If confirmed, I will evaluate the current process guided by 
the principle that Corps technical analyses must be absolutely sound 
and the project evaluation process must be transparent and inclusive. 
External reviews can contribute to reducing controversy and risk, but 
these reviews must be integrated into the project development process 
not added at the end of the process. Integration of external review 
will improve projects and will assist the Corps in meeting urgent needs 
in a timely manner.
                               navigation
    Question. The Army Corps of Engineers has built and maintains an 
intracoastal and inland network of commercial navigation channels, and 
locks and dams for navigation, which comprise an integral parts of the 
Nation's critical infrastructure. The Corps also maintains 300 
commercial harbors, through which pass 2 billion tons of cargo a year, 
and more than 600 smaller harbors. Significant amounts of heavy 
equipment and supplies bound for potential overseas military operations 
move by ship through ports maintained by the civil works program.
    What do you view as the greatest challenges facing the Army with 
respect to the execution of its navigation mission?
    Answer. I expect one of the greatest challenges with the execution 
of the navigation mission to be the maintenance, recapitalization and 
modernization of aging infrastructure. Maintaining ports and waterways 
is critical to our economic well-being. Another significant challenge 
to the navigation mission is the management of hundreds of millions of 
cubic yards of dredged material removed annually from our Nation's 
marine transportation harbors and waterways. I believe the Army and the 
Corps are continually working to make dredging and placement of dredged 
material environmentally safe and acceptable. I believe these efforts 
should be continued and we should look for innovative ways to integrate 
the critical need for navigation improvements with and opportunities to 
protect and restore the Nation's aquatic environment.
    Question. Are there aspects of this mission which you believe 
should be transferred from the Department of the Army?
    Answer. At this time I do not believe that any aspects of the 
Corps' navigation mission should be transferred from the Department of 
the Army.
    Question. In your view, how can the Corps best respond to 
environmental concerns in carrying out its navigation mission?
    Answer. I believe the Corps not only should continue to assess 
environmental considerations as they arise in its Navigation program, 
but also seek out opportunities for regional sediment management and 
beneficial uses of dredged material. As lessons are learned, they 
should be incorporated into the management of the navigation program to 
best provide a safe, efficient, reliable, and environmentally sound 
marine transportation system.
                         environmental mission
    Question. The Corps is responsible for environmental restoration 
projects at Department of Defense Formerly Used Defense Sites and also 
at Department of Energy Formerly Utilized Sites Remedial Action 
Program. Under the DOE program, the Army Corps of Engineers cleans up 
former Manhattan Project and Atomic Energy Commission sites, making use 
of expertise gained in cleaning up former military sites, and civilian 
hazardous waste sites under the Environmental Protection Agency 
``Superfund'' program.
    What do you view as the greatest challenges facing the Army with 
respect to the execution of its environmental restoration mission?
    Answer. Continuing to execute the vital cleanup mission while 
always protecting the health and safety of workers and the public is 
perhaps the biggest challenge for the Formerly Used Defense Sites 
Program and the Formerly Utilized Sites Remedial Action Program. The 
Corps should continue to apply good science and management practices 
that will increase remediation efficiency and continue to meet the 
commitments made to stakeholders. The Formerly Utilized Sites Remedial 
Action Program is a Civil Works mission under the oversight of the 
ASA(CW), as is the Superfund and other environmental work the Corps 
carries out on behalf of non-Defense agencies on a reimbursable basis 
due to the Corps special expertise. In contrast, the Formerly Used 
Defense Sites Program is an element of the Defense Environmental 
Restoration Program under the responsibility of the Assistant Secretary 
of the Army (Installations & Environment).
    Question. Are there aspects of this mission which you believe 
should be transferred from the Department of the Army?
    Answer. At this time I believe the Army is the appropriate agency 
to perform this mission.
    Question. What is your vision for this aspect of the Corps' 
mission?
    Answer. My vision for the Civil Works Formerly Utilized Sites 
Remedial Action Program and for the Corps' reimbursable support for 
non-Defense agencies is that these programs should be executed 
efficiently, in partnerships with others, and with the highest possible 
level of technical competence.
    Question. If confirmed, how would you propose to address the Corps' 
environmental funding requirements?
    Answer. If confirmed, I will evaluate the environmental funding 
needs within the overall Corps Civil Works mission.
    Question. If confirmed, how would you preserve the integrity of the 
Corps' environmental and civil works mission?
    Answer. If confirmed, I will work closely with others, including 
the Chief of Engineers, to ensure that all aspects of the Civil Works 
program are carried out to the highest possible standards of 
engineering and environmental science, and I will strongly support the 
practice, strengthened by the Water Resources Development Act of 2007, 
of engaging outside experts for independent reviews of the Corps' work. 
I have an understanding of the practical issues regarding independent 
review and will work to achieve the fullest implementation of 
congressional intent.
    Question. What are your views about the potential performance of 
regulatory functions presently performed by the Army Corps of Engineers 
by other governmental or nonmilitary entities?
    Answer. At this time I believe the Army continues to be the 
appropriate agency to carry out the regulatory functions currently 
assigned to the Corps of Engineers.
    Question. The Corps is also responsible for Environmental and 
Ecosystem Restoration as part of its Civil Works mission. These include 
the Everglades, Coastal Louisiana, and the Great Lakes. There are many 
large ecosystem restoration projects around the Nation.
    How do you propose to balance the Corps' work between ecosystem 
restoration and traditional navigation?
    Answer. The Corps Civil Works program has three major mission 
areas: Navigation, Flood Damage Reduction, and Ecosystem Restoration. 
If confirmed, I will work to improve watershed planning to balance 
needs and facilitate comprehensive and integrated solutions that 
preserve or enhance performance and sustainability at a system level.
                     state water quality standards
    Question. In the past, the Army Corps of Engineers has not always 
been required to meet State water quality standards in constructing and 
operating its water resources projects.
    Do you believe that the Army Corps of engineers should be required 
to meet State water quality standards in constructing and operating 
Corps projects?
    Answer. Yes, I do. Section 401 of the Clean Water Act requires that 
the Army Corps of Engineers obtain certification from States, or 
interstate water control agencies, that a proposed water resources 
project is in compliance with established effluent limitations and 
water quality standards. If a State in question has assumed 
responsibilities for the section 404 regulatory program, a State 404 
permit would be obtained which would serve as the certification of 
compliance.
    Section 404r of the Clean Water Act waives the requirement to 
obtain the State water quality certification if the information on the 
effects of the discharge is included in an Environmental Impact 
Statement on the proposed project submitted to Congress before the 
discharge takes place and prior to either authorization of the project 
or appropriation of construction funds. Nevertheless, it is my 
understanding that it is the policy of the Corps to seek State water 
quality certification rather than utilizing the Section 404r exemption 
provision.
                               budgeting
    Question. The Corps of Engineers has a significant backlog of 
Operations and Maintenance work and Construction work throughout the 
country. This backlog has very real economic, environmental, and safety 
implications.
    How do you plan to address the backlog of work? How will you 
prioritize certain types of projects above others?
    Answer. If confirmed, I will review the backlog of authorized 
projects that have not been started to determine whether they are still 
appropriate to meet today's water resources challenges, and I will 
consider whether they should be recommended for inclusion in the 
President's budget. Regarding the balance to complete for ongoing 
construction projects, which sometimes is also referred to as part of 
the backlog, I will strive to complete them as efficiently as possible 
in accordance with administration budgetary criteria, in order for the 
Nation to realize the benefits provided by those projects. Regarding 
the maintenance backlog, I will carry out a thorough analysis of the 
remaining backlog after assessing the benefits from the funding 
provided for this purpose under the American Reinvestment and Recovery 
Act.
    Question. What are your views on using the Harbor Maintenance Trust 
Fund, which has approximately a $4 billion surplus, to address the 
Corps' backlog?
    Answer. I understand that there is a large unspent balance of 
revenues and interest in the Harbor Maintenance Trust Fund and that the 
annual revenues exceed recent rates of spending for eligible navigation 
operation and maintenance. I believe this matter merits serious review 
within the administration to determine whether policy, budgetary, or 
legislative changes are appropriate.
                  workforce in the corps of engineers
    Question. There has been much discussion and publicity about the 
reduction in engineers graduating from our Nation's universities over 
the last 20 years.
    How would you assess the overall health of the national engineering 
expertise and capability maintained within the Corps of Engineers 
workforce?
    Answer. From what I understand, this issue has been of great 
importance to the Chief of Engineers for some time. I believe the Corps 
is generally successful in filling positions and usually has multiple 
highly qualified candidates for each position announced. Many of the 
Corps' employees, both civilians and military officers have either 
professional engineering degrees or project management skills 
experience. I believe that recruiting and retaining talented employees 
is key and is an area of great interest to me and, if confirmed, look 
forward to working with the Chief of Engineers to ensure that emphasis 
remains on this critical area within the Corps of Engineers.
    Question. In your opinion, are adequate programs in place and 
funded to ensure the Corps engineering workforce is educated on the 
latest technologies and innovations?
    Answer. If confirmed, I would work with the Chief of Engineers to 
learn more about the programs that are in place and to explore 
additional options and ideas.
    Question. Do you see any challenges or opportunities for 
improvement to the workforce?
    Answer. I believe that there are always opportunities to improve an 
organization's overall workforce. If confirmed, I would work with the 
Chief of Engineers to explore opportunities to improve.
            acquisition processes for the corps of engineers
    Question. In the last 5 years, the Corps of Engineers has 
increasingly relied upon a contract process known as Design-Build, 
which requires a design agent to partner with a construction agent to 
compete for a contract. This differs from the traditional design-bid-
build process, where the Corps contracts first for a design product and 
subsequently issues a separate solicitation for the construction. While 
there are many benefits to a collaborative process between a designer 
and the construction agent, there are also drawbacks. These include the 
reduced oversight by the Corps engineers in the design/construction 
process, and the systematic elimination of small to medium size 
engineering/architecture firms as well as construction contractors who 
do not have the resources to compete for design-build contracts.
    In your opinion, what are the strengths and weaknesses in each 
acquisition process?
    Answer. From my limited prior experience in this area, by way of 
strengths, the design-build process generally results in faster project 
delivery because the requirements can be quickly defined in performance 
terms and the design and construction phases can proceed largely 
concurrently. In terms of weaknesses, the design build process requires 
more effort and therefore may be more costly to industry to submit 
offers and the Government and its customers have less control over the 
final design solutions.
    Question. How should the Corps determine which acquisition process 
to use?
    Answer. I believe the Corps plans all acquisitions pursuant to the 
Federal Acquisition Regulations. The decision to use one delivery 
system over another depends on many factors which involve the customer, 
the project, industry and the Corps of Engineers. I believe all factors 
must be weighed and considered before any particular acquisition method 
is chosen.
    Question. Do you believe the use of design-build contracts has any 
effect on the proficiency of the Corps engineering and contract 
management workforce? If so, can you elaborate?
    Answer. If confirmed, I would consult with the Chief of Engineers, 
to better understand the process and considerations when using the 
design-build option and how it affects the proficiency of the Corps' 
engineering and contract management workforce.
    Question. Do you foresee any issues over the long term emerging 
from the preponderant use of design-build contracts?
    Answer. From what I understand, the Corps plans all acquisitions 
and selects the appropriate delivery system depending on the specific 
requirements. At this time, I do not foresee any issues over the long 
term using design-build contracts.
              nation-wide levee systems and flood control
    Question. The recent floods in North Dakota and surrounding States 
reemphasized the importance and fragility of our Nation's levee 
systems.
    How would you assess the health of these systems?
    Answer. I understand that the Corps of Engineers is in the process 
of inventorying and evaluating levees nation-wide. Until all the 
information is collected, there are still many unknowns. However, in 
general, I agree with the premise that levees across the Nation are 
aging and that this is an important concern.
    Question. In your opinion, is the process used by the Corps of 
Engineers to prioritize national levee requirements adequate?
    Answer. I believe the Corps of Engineers holds public safety as top 
priority and uses basic risk concepts, such as population at risk, to 
prioritize all aspects of levee activities, including inspections, 
operation and maintenance, and construction projects. The Corps is 
currently developing risk tools to improve how it evaluates the risk 
associated with levees in order to improve how national priorities are 
determined. If confirmed, I plan to review the prioritization of levy 
requirements.
    Question. Are the resources provided to date to address these 
requirements adequate?
    Answer. If confirmed, I will evaluate how resources are allocated 
among all of the Civil Works programs.
    Question. If not, what additional resources are needed, in your 
opinion?
    Answer. At this time, I do not know what additional resources may 
be needed in this area. However, if confirmed, I will evaluate funding 
for all programs within Civil Works.
    Question. If confirmed, how would you address concerns about the 
future of the Mississippi River Gulf Outlet (MRGO) and a determination 
on whether it should be closed?
    Answer. It is my understanding that the MRGO was deauthorized on 5 
June 2008, when the Assistant Secretary of the Army for Civil Works, 
the Honorable John Paul Woodley, Jr., sent to Congress the Report of 
the Chief of Engineers, which presents the results of the comprehensive 
plan for MRGO. The report recommended deauthorizing the portion of the 
MRGO navigation channel from the Gulf of Mexico to Mile 60 at the 
southern bank of the Gulf Intracoastal Waterway and physical 
modifications to the MRGO and, based on the requirements of section 
7013 of the Water Resources Development Act of 2007, includes a plan to 
address ecosystem restoration.
    I also understand that the Corps is currently building the MRGO 
closure structure and conducting a feasibility study to develop an 
ecosystem restoration plan for estuarine areas impacted by the MRGO and 
that closure construction work is scheduled for completion this year.
    If confirmed, I will closely monitor the MRGO project.
            prioritization process in the corps of engineers
    Question. The Corps of Engineers have always been subject to 
pressure from various levels of government to carry out certain 
projects of special interest.
    Do you believe the prioritization process used by the Corps of 
Engineers for civil works projects is adequate?
    Answer. It is my understanding that the Corps does not prioritize 
projects for authorization. Once authorized, projects are recommended 
for appropriation consistent with the budgetary criteria set by the 
administration on a yearly basis. Because the budget must address 
prioritization of projects to receive limited funding, budgetary 
criteria are often different from the criteria used to establish 
Federal interest and ultimately support project authorization.
    Question. If confirmed, do you plan to adhere to the established 
prioritization processes, barring any unforeseen circumstances?
    Answer. Yes, I believe that, in general, budgetary criteria reflect 
the priorities of the administration and, if confirmed, I would support 
the administration's budgetary criteria.
    Question. What is your opinion of using peer reviews of Corps 
projects to get an outside opinion on the need, urgency, and assessment 
of effects caused by Corps projects?
    Answer. I believe Corps project proposals should be reviewed by 
both internal and external parties and that these reviews should be 
integrated into the planning process in a way that is transparent and 
seamless. In addition, these reviews should be undertaken in an 
integrated manner to ensure feedback is appropriately incorporated into 
planning investigations at the earliest possible stages of plan 
formulation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Civil Works?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                     harbor maintenance trust fund
    1. Senator Levin. Ms. Darcy, the Harbor Maintenance Trust Fund 
(HMTF) has approximately a $4 billion surplus that is growing every 
year, yet there are ports, waterways, and small harbors, including 
harbors of refuge in Michigan, that are silting due to the U.S. Army 
Corps of Engineers (Corps) having insufficient funds available for 
dredging and other operations and maintenance needs. The money 
collected for the HMTF is intended for a specific purpose--maintaining 
harbors and channels. As I mentioned though, the Corps has significant 
operations and maintenance backlogs, and yet in fiscal year 2008 the 
Corps only spent $766 million in operations and maintenance from the 
HMTF, while the tax revenues collected were $1.6 billion. If confirmed, 
how would you propose to address these needs as you work with the Corps 
divisions and districts and the Office of Management and Budget in 
developing the administration's future budget requests?
    Ms. Darcy. Since I am not yet confirmed, I do not have a specific 
proposal to address the imbalance between revenues to and spending from 
the HMTF. If confirmed, I will work with the Office of Management and 
Budget, other Federal agencies that have responsibilities related to 
the Nation's waterborne commerce, and with nongovernmental stakeholders 
with an interest in the Federal navigation channels and harbors 
maintained by the Army Corps of Engineers, to explore options for 
dealing with this issue. I know from my experience working for Senate 
committees that the HMTF has been a longstanding concern to many 
interested parties.

                               soo locks
    2. Senator Levin. Ms. Darcy, over $30 million has been allocated to 
the Soo Lock Replacement project over several years for engineering and 
design work as well as construction. The Corps has stated that it will 
not provide funding in its budget for the project. Roughly two-thirds 
of the Great Lakes fleet is limited to the current 1,000-foot lock, and 
if something happens which would incapacitate the current lock, there 
would be severe repercussions throughout the region. The Corps is 
considering whether homeland security concerns should also be 
considered since so much raw material moves through the existing Poe 
Lock. Along a parallel track, the Corps is also working on a Soo Locks 
Asset Renewal Plan to upgrade the existing Poe and McArthur locks. This 
project is estimated to cost $70 million, and is critical for the Great 
Lakes shipping industry and American manufacturing. If confirmed, what 
steps would you take to ensure that sufficient infrastructure 
investments are made to maintain the Great Lakes maritime 
competitiveness?
    Ms. Darcy. I appreciate the importance of the Soo Locks to the 
movement of cargo and the commensurate benefit to the economy. If 
confirmed, I will review matters related to the Soo Lock Replacement 
project,,the Soo Locks Asset Renewal-study, and the Army Civil Works 
budgeting practices. I will give careful attention to impacts on Great 
Lakes maritime competitiveness arising from existing and potential 
Civil Works infrastructure investments.

    3. Senator Levin. Ms. Darcy, will you commit to considering 
relevant homeland security concerns in the cost-benefit analysis when 
reviewing the Soo Locks Replacement project?
    Ms. Darcy. If confirmed, I will review how homeland security 
concerns should be considered in analysis and justification of Corps of 
Engineers projects.

    4. Senator Levin. Ms. Darcy, will the Corps' value the benefit of 
reducing the risk and associated cost of lock failure as a result of a 
terrorist act, natural disaster, or mechanical failure?
    Ms. Darcy. I am not familiar with the Corps' current practices for 
placing a value on the benefit of reducing the risk and impacts of 
possible lock failure arising from a terrorist act, natural disaster, 
or mechanical failure. If confirmed, I will review the current 
practices and give full consideration to whether modifications are 
warranted in the interest of national security.

      national and great lakes operations and maintenance backlog
    5. Senator Levin. Ms. Darcy, in Michigan, throughout the Great 
Lakes, and across the country, there is a significant backlog of Corps' 
work. In the Great Lakes, we have been contending with a backlog of 
dredging and other operations and maintenance work. The Corps estimates 
a backlog of 17 million cubic yards at commercial harbors that need to 
be dredged and over 100 miles of breakwaters that need repairs. Due to 
the dredging backlog, several freighters have become stuck in Great 
Lakes channels; ships have had to carry reduced loads, and many 
shipments have simply ceased altogether. Because of the disrepair to 
the breakwaters, some vessels have been unable to use harbors of refuge 
during storms, presenting real threats to public safety.
    This problem stems in part because the Corps views the Great Lakes 
as a coastal system and compares individual ports using tons as a 
budget metric. In contrast, the Corps budgets our Nation's river 
systems on a ton-mile metric. The current budget process and metrics 
put the Great Lakes navigational system at a disadvantage compared to 
other domestic navigational systems. For example, based on fiscal year 
2005 funding levels, the Corps spent about $0.52 per ton of cargo 
carried in the Great Lakes, but the Missouri River received about $15 
per ton of cargo carried. Clearly, the Great Lakes are being 
shortchanged.
    How do you plan to address the backlog of Corps' work across the 
country, and in particular the Great Lakes?
    Ms. Darcy. The Nation's navigation channels and waterways are vital 
components of our transportation system. However, competition for 
Federal funds is very keen, and in a constrained funding environment 
the Corps must prioritize its maintenance needs across the spectrum of 
projects. If confirmed, I will analyze the Corps' current procedures 
and performance measures for allocating scarce funding and will seek 
ways to refine the metrics applicable to maintenance funding to ensure 
that funding for navigation infrastructure is budgeted on a sound basis 
that takes systematic impacts into consideration.

    6. Senator Levin. Ms. Darcy, would you be willing to change the 
Corps' budgeting guidelines to provide more equitable funding 
allocations for the Nation's shipping channels?
    Ms. Darcy. If confirmed, I will review current budgetary guidelines 
and give full consideration to what changes, if.any, are needed to 
enable the Corps to allocate available Civil Works funds in the most 
equitable manner possible.

         great lakes fishery and ecosystem restoration program
    7. Senator Levin. Ms. Darcy, the Great Lakes are home to some very 
unique species of fish and wildlife, but unfortunately, the fishery and 
the ecosystem health of the Great Lakes are threatened by invasive 
species, nonpoint source pollution, contaminated sediments, and habitat 
loss. The Great Lakes Fishery and Ecosystem Restoration Program (GLFER) 
was authorized 9 years ago. The Great Lakes Fishery Commission, which 
is the Corps' primary partner in implementing GLFER, and the Corps has 
expended considerable time, energy, and funds to begin the 
implementation of GLFER. Unfortunately, the Corps has done little to 
support GLFER in its proposed budget. In fact, the Corps has called 
GLFER `unbudgetable' until a feasibility study is conducted to identify 
every project to be done under GLFER. I believe that this is 
unsatisfactory given the fact that it is impossible to identify the 
universe of projects because some will emerge over time. Additionally, 
GLFER is similar to other continuing authority programs such as Section 
206 and Section 1135 for which it does budget. If you are confirmed, 
will you continue to call GLFER `unbudgetable,' hamstringing its 
contribution to Great Lakes restoration?
    Ms. Darcy. From my prior experience, I am familiar with the view 
that programs such as the GLFER Program should have a detailed 
programmatic report on which their budget priority could be evaluated. 
If confirmed, I will review this practice in general and its 
application to the GLFER Program in particular.

                      invasive species-asian carp
    8. Senator Levin. Ms. Darcy, by all accounts, invasive Asian carp 
have the potential to wreak havoc on the Great Lakes economy and 
environment. In an effort to slow or stop the spread of invasive 
species between the Great Lakes and the Mississippi River watersheds, 
which are connected as a result of a Corps project, Congress authorized 
a dispersal barrier demonstration project in the National Invasive 
Species Act of 1996. The barrier has been operating successfully for 
several years, and a second, permanent barrier is partially 
operational. If confirmed, will you make ecosystem protection and 
prevention of organism movement the principle driver for making 
decisions about the electrical barrier system?
    Ms. Darcy. I am aware that invasive species such as the Asian carp 
are a critical concern for the Great Lakes. The Chicago Sanitary and 
Ship Canal is an obvious pathway for these species to reach the Lakes, 
presenting a pressing threat. If confirmed, I will ensure that the best 
science and engineering are applied to complete the proposed three 
barrier system to keep the Asian Carp out of the Great Lakes. In 
coordination with the U.S. Coast Guard, I will work to ensure the 
barriers are employed at the maximum safe levels of operation. I will 
also explore additional alternatives, making every effort to keep 
invasive species from the Lakes.

    9. Senator Levin. Ms. Darcy, will you commit to completing the 
authorized report on progress toward identifying a more permanent 
solution to the problem of interbasin organism movement?
    Ms. Darcy. If confirmed, I will make every effort within my 
authority to complete the authorized report seeking a more permanent 
solution to the problem of interbasin organism movement.

                   great lakes interagency task force
    10. Senator Levin. Ms. Darcy, beginning in 2004, the Federal 
agencies that manage programs on the Great Lakes began working 
cooperatively as part of the Great Lakes Interagency Task Force. The 
Corps of Engineers has many authorized programs and projects on the 
Great Lakes, and your predecessor, Secretary Woodley, was engaged in 
the activities of this Task Force. If confirmed, will you commit to 
being an active partner in the Great Lakes Interagency Task Force?
    Ms. Darcy. I believe the Great Lakes Interagency Task Force is one 
of the most effective interagency collaborations both within the United 
States and between the United States and Canada, and I understand the 
Corps of Engineers has been instrumental in this collaboration. If 
confirmed, I will be an active partner in the Task Force and will try 
not only to sustain these collaborative efforts, but to strengthen 
them.

                      local and state coordination
    11. Senator Levin. Ms. Darcy, the Corps has a great deal of 
expertise and resources that can be very valuable in the effort to 
restore the health of the Great Lakes. One of the challenges local 
organizations and State agencies often face in working with the Corps 
is meeting the requirements for local cost share. Do you have any 
recommendations for ways that the Corps might be a more effective 
partner with local organizations in pursuing restoration projects by 
reducing the overall cost of Corps restoration projects so that the 
local share will be more affordable?
    Ms. Darcy. I believe that one way the partnerships could be more 
effective is to renew efforts to reduce the time it takes to plan and 
make decisions regarding projects. If the time it takes to complete a 
study is shortened, the overall cost of the study will be reduced since 
a large portion of the cost is salaries and overhead. If confirmed, I 
will work with the Corps to identify opportunities to shorten the time 
required to complete studies, as well as opportunities to better 
integrate existing planning studies and to examine benefits from more 
emphasis on watershed-wide and regional programmatic analyses.

                        interagency coordination
    12. Senator Levin. Ms. Darcy, one of the challenges we face in 
restoring the Great Lakes is bringing the resources and talents of 
multiple Federal agencies of the Federal Government together to meet a 
common challenge. Too often, Federal agencies are confined by narrow 
authorities or interpretations of their authority that make it 
difficult for Federal agencies to work together on common Great Lakes 
projects. President Obama's recent $475 million budget request for an 
interagency Great Lakes restoration initiative (led by the 
Environmental Protection Agency (EPA)) may be an opportunity for 
Federal agencies to pool or share resources so that the Corps can bring 
its unique skills and expertise together with the unique skills and 
areas of expertise of others in the Federal family to tackle a problem. 
Can you recommend ways that the Corps can improve its ability to work 
in a team setting with other Federal agencies to bring the best 
combination of Federal skills and resources together to tackle a 
problem?
    Ms. Darcy. If confirmed, I will work with the Corps of Engineers, 
the EPA, and other Federal agencies to determine the appropriate role 
for the Corps in supporting the execution of President Obama's fiscal 
year 2010 interagency initiative to restore the Great Lakes. I am 
committed to maximizing interagency collaboration by building and 
sustaining strong working relationships with sister agencies. If 
confirmed, I will work to expand the Corps' watershed planning and 
management activities and to more fully engage Federal and non-Federal 
stakeholders in a wide variety of efforts.

    13. Senator Levin. Ms. Darcy, are there any changes in authority 
that might make this approach more feasible?
    Ms. Darcy. While I am not aware of any specific concerns with the 
Corps' current authorities to engage in partnerships with other Federal 
agencies, if confirmed I will look into this matter. Also, I will work 
with the EPA and other Federal agencies to determine whether any 
additional authority is needed to enable the Corps to fully support the 
President's initiative.
                                 ______
                                 
                Question Submitted by Senator Jack Reed
                            maritime hazards
    14. Senator Reed. Ms. Darcy, in past years, both the Corps and I 
have sought and secured funding to remove several large boulders from 
the mouth of the Charlestown (Rhode Island) Breachway, which connects 
Ninigret Pond to the Block Island Sound. The boulders are a severe 
safety hazard to vessels attempting to enter or exit the pond. There 
are on average 20 grounding incidents on the rocks per year, and severe 
damage causing complete loss of a boat occurs on average once every 10 
years. While the damages from groundings are significant, town 
officials are most concerned about the potential for loss of life 
during a grounding accident in poor conditions.
    This project has been funded and designed under section 107 of the 
River and Harbors Act. However, as the project has gone through design, 
the cost benefit ratio for commercial vessels, which does not include 
the potential for loss of life, has been difficult to justify. 
Nonetheless, Federal funds to complete the project have been 
appropriated and are in hand. The Corps does have authority under 
section 3 to help clear snags, debris, other impediments to navigation, 
and I understand that the Corps has looked into using this authority to 
complete the project, but such projects are capped at a total of $1 
million.
    Knowing the critical need for this project and the fact that funds 
are available to complete it, will you work with me, once you are 
confirmed, to ensure that this project can move forward with the 
funding that has been appropriated and without an additional burden on 
the local sponsor?
    Ms. Darcy. I am aware of this project, and if confirmed, I will 
work with you and the Corps to explore potential solutions to this 
problem.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                         prioritizing projects
    15. Senator McCain. Ms. Darcy, in your answers to advance policy 
questions submitted by this committee, and in response to my question 
posed during the hearing, you responded to a question about 
prioritization processes in the Corps for civil works projects with the 
following: ``It is my understanding that the Corps does not prioritize 
projects for authorization.'' Can you clarify exactly what you mean by 
this statement?
    Ms. Darcy. Yes, I would be happy to clarify my response to your 
question. I understood your question to concern project authorizations, 
as distinguished from project budgeting. It is my understanding that in 
the budget formulation process, Civil Works projects are prioritized 
annually on the basis of the economic and environmental benefits they 
will provide to the Nation when completed. The authorization process 
for Civil Works projects is different. The planning process for each 
project looks at alternatives and recommends for authorization the best 
overall project to achieve the intended purposes for that particular 
project. Each proposed project is considered on its own merits. The 
Corps ofEngineers Headquarters conducts a policy review of the project 
``feasibility'' reports, and the Office of the Assistant Secretary 
ofthe Army for Civil Works also conducts a policy review of the 
reports.
    It is my understanding that, once the Assistant Secretary's 
questions and concerns have been satisfactorily addressed, the report 
is forwarded to the Office of Management and Budget, where it receives 
a third policy review pursuant to Executive Order # 12322. Only after a 
feasibility report has been approved at all of these levels is the 
project recommended by the Assistant Secretary for authorization by 
Congress. Congress sometimes has a different view and does not always 
enact legislation, including project authorizations, exactly as the 
administration has proposed. One could consider the various policy 
reviews a project undergoes before being recommended by the Assistant 
Secretary for authorization to be a process of prioritization, although 
I think of that term as applying to the budget formulation process.

                         corps responsibilities
    16. Senator McCain. Ms. Darcy, what is your understanding of the 
responsibilities of the Corps of Engineers as it relates to 
recommendations for resource allocation and prioritization for the 
Nation's navigation infrastructure, flood and storm damage controls, 
hydropower, and numerous environmental requirements?
    Ms. Darcy. I understand that the Corps of Engineers provides to the 
Assistant Secretary of the Army (Civil Works) and the Office of 
Management and Budget accurate and complete information and options on 
to make sound resource allocation and budget prioritization decisions. 
The Corps also applies the resulting policy decisions, and priorities 
in its justification of the budget and in the execution of the annual 
program, unless Congress provides direction through Appropriations Acts 
that modify the program proposed in the budget.
    The Chief of Engineers has the responsibility to make technical 
recommendations that are sound on an engineering and scientific basis. 
Our shared responsibility, if I am confirmed, will be to ensure that 
projects are properly formulated and consistent with law and 
administration policies applicable to water resources project planning 
and authorization.

                             corps' budget
    17. Senator McCain. Ms. Darcy, if confirmed, how do you plan to 
take part in the development of budgets and proposed project 
authorizations for Corps programs?
    Ms. Darcy. If confirmed, I will devote a significant amount of my 
time to the development and defense of the budget for the Corps' Civil 
Works program and to overseeing its execution from a policy 
perspective. I also will devote my time to reviewing the Corps proposed 
project authorizations, as documented in feasibility reports. I 
understand that within the Office of the Assistant Secretary of the 
Army (Civil Works), there is one team responsible for overseeing the 
Budget process, and a separate team responsible for providing planning 
policy guidance to the Corps, reviewing feasibility reports, and 
recommending to the Office of Management and Budget whether or not the 
administration should support authorization of the projects addressed 
in the feasibility reports.

    18. Senator McCain. Ms. Darcy, what is your understanding of your 
potential responsibilities as they relate to the development of the 
Army Corps of Engineers Civil Works Program 5-Year Development Plan, 
the most recent version being for years, fiscal year 2009 to fiscal 
year 2013?
    Ms. Darcy. I understand that my responsibilities, if confirmed, 
would be overseeing the preparation and approval of the Civil Works 5 
Year Development Plan (FYDP). The Civil Works FYDP differs 
significantly from the Future Years Defense Plan that is developed as 
part of Department of Defense's military budget and program planning. 
Also, since Civil Works projects and programs are individually 
authorized, there is no annual authorization act to support the Civil 
Works budget, as there is on the military side.

    19. Senator McCain. Ms. Darcy, how do you plan to handle requests 
by Members of Congress and other Federal, State, and local entities to 
have special interest projects and earmarks inserted into various 
legislation regarding Corps projects if these projects are not 
consistent with the priorities proposed by the Corps?
    Ms. Darcy. If confirmed, I will consider all proposals for 
inclusion in the Civil Works budget and, by extension, the Civil Works 
FYDP. I will apply administration policy for the Civil Works program to 
mydecisions and, if I believe the policy needs to be changed, I will 
work within the administration to achieve this outcome. I will listen 
to all parties who have an interest in a project. I will rely heavily 
on the Corps of Engineers for information, but I will make the 
decisions. My legislative proposals will align with administration 
policy or will contain proposals to change policy. Since the Civil 
Works FYDP is a 5-year extension of the Civil Works annual budget, it 
will continue to reflect the administration's and the Army's priorities 
for resource allocation.

    20. Senator McCain. Ms. Darcy, if confirmed, do you plan to change 
or eliminate the prioritization processes outlined for each program in 
the 5-Year Plan?
    Ms. Darcy. If confirmed, I will consider all proposals for 
inclusion in the Civil Works budget and, by extension, the Civil Works 
FYDP. I will apply administration policy for the Civil Works program to 
my decisions and, if I believe the policy needs to be changed, I will 
work within the administration to achieve this outcome. I will listen 
to all parties who have an interest in a project. I will rely heavily 
on the Corps of Engineers for information, but I will make the 
decisions. My legislative proposals will align with administration 
policy or will contain proposals to change policy. Since the Civil 
Works FYDP is a 5-year extension of the Civil Works annual budget, it 
will continue to reflect the administration's and the Army's priorities 
for resource allocation.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                    water resources development act
    21. Senator Inhofe. Ms. Darcy, Congress has tried to pass Water 
Resources Development Acts (WRDA) every 2 years, with varying success. 
Under that schedule, this year should see work on another WRDA. If 
confirmed as Assistant Secretary, do you anticipate sending an 
administration proposal to Congress for consideration this year?
    Ms. Darcy. If confirmed, I will initiate discussions on whether the 
administration should submit a WRDA legislative proposal this year. 
While I cannot commit to the outcome of those discussions, I will 
ensure that they take place.

                      inland waterways trust fund
    22. Senator Inhofe. Ms. Darcy, as I am sure you are well aware, the 
Inland Waterways Trust Fund no longer contains a surplus, and annual 
revenues are not sufficient to support investments of the same level as 
have been made for the past several years. President Obama's fiscal 
year 2010 budget blueprint released earlier this year expressed support 
for transitioning away from the current fuel tax and to lockage fees as 
the revenue source for the Trust Fund. That concept was advanced by the 
Bush administration last year, but received no traction here in 
Congress. Are you willing to work with Congress, as well as the 
navigation industry, to try to find an answer to this problem that can 
be supported by all interested parties?
    Ms. Darcy. While I have not seen the details of the Inland 
Waterways Trust Fund legislative proposal being submitted with the 
fiscal year 2010 budget, I am aware that a similar proposal was made 
last year by the prior administration. I do appreciate both the need 
for increased revenues in the Trust Fund and that there are differing 
views on the best solution. If confirmed, I will work with Congress and 
the navigation industry to find an answer to this matter.

                         water storage pricing
    23. Senator Inhofe. Ms. Darcy, one of the problems some of the 
communities in Oklahoma have run into is that even when there is 
available municipal water supply storage at existing reservoirs, the 
Corps' policy on pricing that water supply storage makes it 
prohibitively expensive. Do you know how long it has been since this 
policy has been reevaluated?
    Ms. Darcy. At this time, I do not know how much time has passed 
since the policy regarding water supply storage has been reevaluated. 
If confirmed, I will work with the Corps of Engineers to evaluate this 
policy and consider if changes are appropriate.

    24. Senator Inhofe. Ms. Darcy, will you commit to working with me 
to see if we can improve this policy--either administratively or 
legislatively--so that communities can afford the water supply storage 
opportunities that exist at Corps reservoirs?
    Ms. Darcy. If confirmed, I will work with you and the Corps of 
Engineers to determine what changes are necessary and the best method 
to implement appropriate changes.

    25. Senator Inhofe. Ms. Darcy, on the other side of the issue, 
hydropower interests have expressed frustration with the Corps' policy 
of determining compensation for lost generation due to reallocations. 
Will you work with me to see if we can find a compromise?
    Ms. Darcy. If confirmed, I will review the Corps' policy for 
determining compensation for lost hydropower generation due to 
reallocation of reservoir storage space, and I will work with you to 
try to address this important issue.

                 water resource problem identification
    26. Senator Inhofe. Ms. Darcy, many individuals and organizations 
who work with the Corps of Engineers have complained that the process 
the Corps follows to get from identifying a water resources problem or 
need to implementing a solution can be very frustrating, overly long, 
and costly. Do you have any ideas on improving that process?
    Ms. Darcy. I am familiar with this longstanding issue due to my 
prior position with the Committee on Environment and Public Works 
(EPW). Periodically, there have been efforts to streamline the Corps 
planning process, some of which have proven successful. Although I do 
not have specific ideas at this time on how to improve the process, I 
will, if confirmed, make it a priority to identify ways to shorten and 
simplify the planning process and will work diligently to implement 
these initiatives as quickly as practicable.

    27. Senator Inhofe. Ms. Darcy, will you make it a priority to 
develop and implement ways to rationalize the process?
    Ms. Darcy. If confirmed, I will make it a priority to identify ways 
to shorten and simplify the planning process and will work diligently 
to implement these initiatives as quickly as practicable.

                             fee collection
    28. Senator Inhofe. Ms. Darcy, you may have heard me state in 
hearings and other meetings that I am very supportive of the concept of 
allowing the Corps to use the fees it collects at recreation facilities 
to operate, maintain, and improve recreation opportunities. 
Unfortunately, we have consistently run into budget scoring problems 
that have prevented us from enacting such a proposal. Will you please 
commit to working with me to see if we can come up with other ways to 
accomplish this goal of improving recreation opportunities that do not 
have the same scoring hurdles?
    Ms. Darcy. If confirmed, I commit to working with you and the EPW 
committee to develop alternatives to improve recreation opportunities 
that either don't create scoring hurdles or include means of addressing 
the scoring issues that arise.

                            clean water act
    29. Senator Inhofe. Ms. Darcy, the legislative debate regarding 
Clean Water Act jurisdiction will be a controversial issue that the 
Obama administration will have to deal with. Please describe what you 
would like to see accomplished under the Obama administration regarding 
Clean Water Act jurisdiction, keeping in mind the Federal interests and 
State prerogatives envisioned in the Clean Water Act.
    Ms. Darcy. I have not had specific conversations with the President 
or members of his staff about Clean Water Act jurisdiction, but I do 
know that generally, his administration is looking for good government, 
and applying the principles of consistency, predictability, and 
transparency to its regulatory programs is consistent with this 
philosophy. I support these tenets. If confirmed, I will certainly keep 
in mind the Federal interests and State prerogatives envisioned in the 
Clean Water Act when implementing the section 404 program.

    30. Senator Inhofe. Ms. Darcy, do you believe the Corps' and the 
EPA's interpretation of ``waters of the U.S.'' in recent years has been 
appropriate, overly broad, or overly narrow?
    Ms. Darcy. I cannot say at this time whether the agencies' 
interpretations of the term ``waters of the U.S.'' have been overly 
broad or narrow. If confirmed, I will be looking to see exactly what 
the Clean Water Act and relevant court decisions say with respect to 
this question. I will then review the Corps' existing regulations to 
ensure that the Corps is applying the law and regulations 
appropriately, as influenced by court decisions.

    31. Senator Inhofe. Ms. Darcy, can you please provide examples of 
waters that are not currently considered jurisdictional waters of the 
United States, but that you believe should be jurisdictional and vice 
versa?
    Ms. Darcy. I cannot provide you with a definitive response to this 
question at this time. While I am familiar with the term ``waters of 
the U.S.,'' and how it is applied, I do not at this time have a full 
understanding of what waters, by type or other descriptor, the Corps 
considers jurisdictional or not. If confirmed, I will explore this very 
important question. Not only would I be interested in fully 
understanding the jurisdictional status of various waters, but I would 
want to learn how consistently the Corps applies or doesn't apply 
jurisdiction across the country.

    32. Senator Inhofe. Ms. Darcy, what is your opinion of the Clean 
Water Restoration Act, as introduced earlier this month by Senator 
Feingold?
    Ms. Darcy. I am aware of the Clean Water Restoration Act introduced 
earlier this year by Senator Feingold. However I have not yet 
formulated an opinion on the bill, nor do I yet fully understand its 
implications for the Section 404 Regulatory Program. If confirmed, I 
will make it a priority to study that bill and any other legislation 
relevant to the Corps' mission, and work with you and the Corps to 
understand the implications.

    33. Senator Inhofe. Ms. Darcy, the significant nexus test has been 
criticized for leading to arbitrary applications and uncertainty within 
industry regarding what waters are, and are not, considered waters of 
the United States. Do you agree or disagree?
    Ms. Darcy. As I understand it, the Supreme Court did not provide a 
definition of the term ``significant nexus'', nor did the Court explain 
exactly how such a test might be conducted. The decision only made 
mention of certain waters having a significant nexus with traditionally 
navigable waters. This state of play is posing challenges for both the 
Corps and the regulated community. I believe that the Corps has worked 
hard to figure out exactly what the term means and how to 
operationalize it in the field. If confirmed, I will take a hard look 
at how significant nexus determinations are being made, talk to 
industry and the public, and work to clarify how jurisdictional 
determinations are made.

    34. Senator Inhofe. Ms. Darcy, how would you, as Assistant 
Secretary of the Army for Civil Works, seek to bring more certainty to 
industry regarding where Clean Water Act regulation applies?
    Ms. Darcy. If confirmed, I would meet with industry representatives 
and other stakeholders to learn first hand what are the issues and 
concerns. I would work within the administration to look at legislative 
and policy guidance options for addressing certainty issues. Certainty 
is important to industry for many obvious reasons, but it is also 
important to the Corps Regulatory Program because clear, transparent, 
predictable, and science-based regulatory processes and decisions are 
fair, efficient, and effective in protecting the aquatic environment 
while allowing important economic development activities to move 
forward.

    35. Senator Inhofe. Ms. Darcy, will you commit to working with my 
staff in finding ways to improve certainty and increase permitting 
efficiency?
    Ms. Darcy. If confirmed, I am committed to working with you and 
your staff to review to address jurisdictional, regulatory certainty, 
and permitting efficiency issues.

    36. Senator Inhofe. Ms. Darcy, what is your understanding of the 
shared role of the EPA and the Army Corps of Engineers in implementing 
the Clean Water Act?
    Ms. Darcy. My experience working for the Senate EPW Committee has 
afforded me insight into how the Corps and EPA share Clean Water Act 
responsibility. The Act clearly gives both agencies specific roles and 
responsibilities, with EPA being responsible for most of the act and 
the Corps responsible for Section 404 permitting.

    37. Senator Inhofe. Ms. Darcy, do you intend to seek to modify the 
shared responsibilities?
    Ms. Darcy. If confirmed, I would support continued cooperation 
between the agencies, but at this time have no plans for seeking to 
modify the sharing of responsibilities.

    38. Senator Inhofe. Ms. Darcy, do you intend to coordinate with 
other agencies in implementing the Clean Water Act?
    Ms. Darcy. Absolutely. The responsibility for implementing the 
Clean Water Act is shared by the EPA and Army Civil Works, acting 
through the Corps of Engineers. In addition, the Departments of the 
Interior and Commerce have important roles in providing comments, 
advice, and recommendations for fish and wildlife species, and their 
habitat. I also believe that coordination with the Department of 
Agriculture will be important because the NRCS is involved in wetlands 
work and determinations under Swampbuster legislation, and the 
Department of Transportation where the Corps and transportation 
agencies have developed procedures to integrate NEPA and Section 404 
actions.

                          coal mining permits
    39. Senator Inhofe. Ms. Darcy, I am sure you are aware of current 
backlogs of section 404 permits for coal mining, primarily the 
Huntington and Louisville Corps District Offices. These permits are 
critical to the continuation of existing mines and for new and 
expanding mines that will create or maintain thousands of high paying 
jobs in these regions. Many of the permits have been pending for 2 or 3 
years--what will you do to address the backlogs?
    Ms. Darcy. The efficient processing section 404 permits is 
important to the Nation, our economic recovery and health, and for 
achieving CWA environmental protection objectives. If confirmed, I will 
make the Section 404 Regulatory Program a priority, and work with the 
Corps and Congress to address issues like permitting efficiency, 
backlogs, staffing, and funding for all permits under the Section 404 
Regulatory Program.

    40. Senator Inhofe. Ms. Darcy, the U.S. Court of Appeals for the 
Fourth Circuit recently issued a decision that in large part validates 
the Corps' process for reviewing and issuing permits authorizing 
discharges to waters associated with coal mining operations--yet, the 
EPA is advocating the need for a much stronger role in Corps Section 
404 permit decisionmaking process for coal operations. This can cause 
duplication, delay, and increasing uncertainty in the program. What 
will you do to ensure the Corps maintains the ability to exercise its 
independent and primary decisionmaking authority as Congress intended?
    Ms. Darcy. While I am familiar with the 4th Circuit's decision, I 
have only limited knowledge as to how the decision is being interpreted 
by the Corps or EPA. If confirmed, I will examine how the Corps is 
executing its responsibilities regarding the Section 404 permit 
decisions for coal operations to ensure we are carrying out the law.

    41. Senator Inhofe. Ms. Darcy, what will you do to ensure those of 
us that believe the Corps is doing a good job of performing 
environmental review of these permits, as recognized by the courts, 
that the flow of permits will no longer be unnecessarily delayed by the 
EPA re-review process?
    Ms. Darcy. If confirmed, I will look into issues regarding permit 
processing times and procedures, and also coordination requirements, 
with a view to having the Corps Regulatory Program be as efficient as 
practicable. I do not have any information regarding EPA wanting to re-
review Corps permits. I will have to look into this issue and provide 
you with a response in the future, should I be confirmed.

    42. Senator Inhofe. Ms. Darcy, I believe that there are individuals 
in the EPA that would like to see coal removed from our energy 
portfolio. I know you have no direct role in the EPA deliberations but 
you will have a consultative role, at least given your responsibilities 
to administer the Clean Water Act Section 404 permit program. What are 
your views on our continued use of coal and more specifically, what are 
your views on the current methods used to extract coal?
    Ms. Darcy. I am aware that there are issues regarding the use of 
coal and the methods by which it is mined. If confirmed, I will be 
briefed by the Army General Counsel, by my staff, and by the Corps and 
consult with officials from the Department of the Interior and the 
Office of Surface Mining before I could comment on these important 
questions.
                                 ______
                                 
    [The nomination reference of Jo-Ellen Darcy follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 2, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jo-Ellen Darcy, of Maryland, to be an Assistant Secretary of the 
Army, vice John Paul Woodley, Jr.
                                 ______
                                 
    [The biographical sketch of Jo-Ellen Darcy, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Jo-Ellen Darcy
    Jo-Ellen Darcy is the Senior Environmental Advisor to the Senate 
Finance Committee responsible for environment, conservation, and energy 
issues. Previously, she was Senior Policy Advisor to the Senate 
Environment and Public Works (EPW) Committee, Democratic staff, 
concentrating on fish and wildlife issues, the Army Corps of Engineers, 
nominations, and a variety of conservation and water issues. At the 
start of the 107th Congress, she was the Deputy Staff Director for the 
EPW Committee. From 1993 through 2000, she served as a professional 
staff member on the EPW Committee, working on a variety of issues, 
including the Safe Drinking Water Act, Army Corps of Engineers 
programs, Federal Emergency Management Agency, Everglades Restoration, 
and the Clean Water Act.
    Before joining the EPW Committee, Jo-Ellen worked on the Clinton 
campaign in 1992, and was a legislative representative for the 
Investment Company Institute. She worked on water resources issues for 
Governor Jim Blanchard of Michigan in both Lansing and Washington, DC. 
Previously, she worked for the Subcommittee on Economic Stabilization 
of the House Banking Committee and was an elementary school teacher.
    She hails from Fitchburg, MA, and has a B.A. in philosophy and 
sociology from Boston College and a M.S. in resource development from 
Michigan State University.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Jo-Ellen Darcy 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jo-Ellen Darcy.

    2. Position to which nominated:
    Assistant Secretary of the Army for Civil Works.

    3. Date of nomination:
    April 3, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 11, 1951; Fitchburg, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Fitchburg High School, Fitchburg, MA; 1966-1969; diploma received: 
1969.
    Boston College, Chestnut Hill, MA; 1969-1973; graduated Cum Laude 
with a Bachelor of Arts degree in Philosophy and Sociology, 1973.
    Michigan State University, East Lansing, MI; 1983-1984; Master of 
Science in Natural Resource Development received 1987.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Environmental Advisor, Committee on Finance, U.S. Senate, 
Washington, DC; 2007-present.
    Senior Policy Advisor, Committee on Environment and Public Works, 
U.S. Senate, Washington, DC; 2001-2006.
    Deputy Staff Director, Committee on Environment and Public Works, 
U.S. Senate, Washington, DC; 2001.
    Professional Staff, Committee on Environment and Public Works, U.S. 
Senate, Washington, DC; 1993-2001.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Democratic National Committee.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $400, Obama, 2008.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of the Army Commander's Award for Public Service, 2001.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Jo-Ellen Darcy.
    This 16th day of April, 2009.

    [The nomination of Jo-Ellen Darcy was reported to the 
Senate by Chairman Levin on May 6, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 7, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. Ines Triay by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Energy for Environmental Management?
    Answer. The duties and functions of the Assistant Secretary of 
Environmental Management (EM) include providing leadership, management, 
and oversight of cleanup activities at Department of Energy (DOE or 
Department) sites across the country. EM is responsible for the risk 
reduction and cleanup of the environmental legacy of the U.S. nuclear 
weapons production, and is the largest and most technically complex 
environmental cleanup program in the world. The Assistant Secretary 
directs the EM program and establishes the vision of the environmental 
cleanup; is externally focused and responsible for representing the 
program to Congress, the tribal nations, the States, regulatory, 
oversight, and advisory organizations, the media, and other 
stakeholders. The Assistant Secretary is the chief executive of the 
Environmental Management program, and in that capacity is responsible 
for assuring that the corporate strategies of the Department for the 
environmental cleanup are effectively implemented by the Federal and 
contractor workforce. The Assistant Secretary is also responsible for 
assuring that the projects in the EM portfolio are delivered on 
schedule and within cost; the overall program is managed in an 
efficient and effective manner; and all EM activities are conducted in 
a safe, secure, and compliant manner.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Chu would prescribe for you?
    Answer. I expect to be asked to carry out those duties and 
functions outlined above.
                             qualifications
    Question. What qualifications and experience do you have that would 
qualify you to perform the duties of the Assistant Secretary of Energy 
for Environmental Management?
    Answer. I have a thorough understanding of the complexity and 
magnitude of the task that we face in the Environmental Management (EM) 
program. My formal training is as a physical chemist with a doctorate 
from the University of Miami, FL. I worked at Los Alamos National 
Laboratory for 14 years in progressively more responsible positions, 
from Postdoctoral Researcher to Group Leader in the Isotope and Nuclear 
Chemistry Division, to Acting Deputy Director of the Chemical Science 
and Technology Division. While at Los Alamos, I focused on the study of 
the same nuclear isotopes we are concerned with in the cleanup program 
today.
    In April 1999, former Energy Secretary Bill Richardson named me as 
Manager of the Department's Carlsbad Field Office in New Mexico. There, 
I was responsible for the Waste Isolation Pilot Plant (WIPP), the 
Nation's only deep geologic repository for the disposal of transuranic 
waste. I am most proud of the fact that during my tenure, I led the 
engineering of the transuranic waste complex from its inception of 1 or 
2 shipments to WIPP per week, to full operations at 25 shipments per 
week.
    In January 2004, I was named the Deputy Chief Operating Officer for 
Environmental Management, and in May 2005, I assumed the position of 
Chief Operating Officer. Under my leadership in these positions, the EM 
program completed the cleanup of the former Rocky Flats nuclear weapons 
site in Colorado and the former Fernald uranium processing plant in 
Ohio. I played a leadership role in the commencement of remote-handled 
transuranic waste disposal operations at the WIPP in New Mexico.
    In October 2007, I was named Principal Deputy Assistant Secretary 
for the EM program, and since November 2008, I have been the acting 
Assistant Secretary for Environmental Management. To summarize, I have 
extensive experience as a field and laboratory researcher, as a 
contractor operations manager, as a DOE field operations manager, and 
as a senior member of the EM headquarters team. I have worked 
diligently with our stakeholders and regulators at the local and at the 
national level, and I have had the opportunity to work closely with 
Members of Congress and their staffs as well. I have witnessed every 
function that we perform in the program on a first hand basis and I 
have dedicated my life to the successful cleanup of the environmental 
legacy of the Cold War nuclear production.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Energy for Environmental Management and the 
Environmental Management program?
    Answer. The major challenges facing the new Assistant Secretary and 
the Environmental Management (EM) program are:

          (1) Ensuring the completion of the EM projects on schedule 
        and within costs, with emphasis on our first-of-a-kind 
        construction projects to address highly-radioactive waste in 
        underground tanks; and
          (2) Delivering better value to the American taxpayer through 
        decreasing the projected life-cycle cost of conducting the EM 
        cleanup.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The Environmental Management (EM) program must strengthen 
the Federal and contractor project management capability and improve 
the skill set of the project management teams. Aggressive efforts are 
underway in EM, in partnership with the U.S. Army Corps of Engineers, 
to identify and implement the necessary enhancements in personnel 
capabilities and systems to transform EM into a ``best-in-class'' 
project management organization. EM is also developing and implementing 
processes and procedures for quality assurance and for identifying and 
managing project risks.
    If confirmed, under my leadership, EM will identify and minimize 
the programmatic risks associated with start of construction during the 
early stages of the design phase. EM is incorporating technology 
readiness assessment and maturity planning into construction and 
cleanup projects at all stages, along with DOE Standard 1189, 
Integration of Safety into the Design Process, which requires safety to 
be integrated early in the design phases of projects.
    In addition, if confirmed, I intend to look within the Department 
to the Office of Science, which has had an excellent record of 
completing their construction projects on time and within cost. The 
Secretary has made their lead project management expert available to 
advise us, and we have developed a review process modeled after the DOE 
Office of Science project reviews, tailored for the EM projects. These 
construction project reviews determine if project performance is 
consistent with agreed upon mission and project requirements; has 
reached the appropriate level of maturity; and can be completed 
successfully as planned, budgeted, and scheduled. These reviews are 
scheduled approximately every 6 months, and are intended to reduce the 
risk of project failure by identifying existing and potential problems 
in a timely manner so that adequate resolution is possible.
    These independent reviews will examine in detail all aspects of a 
construction project, including: project management; technology, 
design, and engineering; safety; environmental compliance; security; 
and quality assurance. The process will rely on expert knowledge and 
experience of world-class engineers, scientists, and managers sourced 
from Federal staff, DOE contractors, engineering firms, national 
laboratories, and the academic community.
    The Government Accountability Office (GAO) continues to include DOE 
contract and project management on its list of government programs at 
high risk, the GAO believes ``that DOE as a whole has met three of the 
five criteria necessary for removal from the high risk list.'' The two 
criteria that remain before we can be removed entirely from the list 
require having the capacity (people and resources) to resolve the 
problems, as well as monitoring and independently validating the 
effectiveness and sustainability of corrective measures. I am committed 
to completing the actions in DOE's Corrective Action Plan, which will 
address these two criteria. If I am confirmed, my personal goal will be 
to see that we are removed from the GAO high-risk list during my 
tenure.
    We have taken a number of other specific steps to ensure superior 
project performance:

        <bullet> Initiated a thorough review of the contract type and 
        fee structure for all construction projects in order to ensure 
        that the contract type and fee structure will result in 
        maximizing improved performance in the EM projects.
        <bullet> Required the parent companies carrying out the major 
        EM projects (including all construction projects) to justify 
        and improve the composition of the contractor management teams 
        in charge of executing the EM projects.
        <bullet> Increased the EM on-board count during the past 2 
        years by approximately 300 Federal employees (from 1370 to 
        1680) in the areas of project and contract management, safety, 
        engineering, and quality assurance. The EM program is poised to 
        increase its Federal staff to 1,800 to further strengthen our 
        oversight capability. While EM hires Federal personnel, 
        continued use of staff augmentation through the U.S. Army Corps 
        of Engineers will be employed to fill the gaps.
        <bullet> Established an Office of Quality Assurance at 
        Headquarters, and required Federal and contractor quality 
        assurance professionals at every field site. This is needed to 
        assure quality is incorporated into EM projects, thus avoiding 
        cost increases and schedule delays. Federal quality assurance 
        resources now account for almost 6 percent of the total number 
        of EM employees, which is within the industry range of 4 to 7 
        percent.
        <bullet> Continued training sessions and supplier workshops 
        attended by hundreds of large and small businesses alike, in 
        order to increase the cadre of suppliers qualified to the high 
        standards of nuclear quality assurance.
        <bullet> Implemented the Department of Defense and National 
        Aeronautics and Space Administration Technology Readiness 
        Levels to judge the relative maturity of new technologies prior 
        to approving full-scale development.
        <bullet> Established a cost-estimating group at the EM 
        Consolidated Business Center, in order to improve the quality 
        of the EM program's independent government estimates for 
        construction and cleanup projects.
        <bullet> Initiated the process of implementing a project 
        management software tool to further increase transparency of 
        the health of EM projects not only to EM management but also to 
        the DOE's Office of Engineering and Construction Management.
        <bullet> Increased the frequency of the EM headquarters and 
        field project management reviews from quarterly to monthly to 
        increase management attention and accountability at all levels. 
        These reviews are attended regularly by DOE's Office of 
        Engineering and Construction Management and often times by the 
        Office of Management and Budget.

    We will address life-cycle costs by continuing our strategic 
planning efforts to identify and evaluate alternative approaches for 
radioactive waste in tanks, spent nuclear fuel, and special nuclear 
materials. Strategic planning efforts are underway in these areas that 
have the highest overall life-cycle costs of the program. We are 
looking for both incremental improvements to optimize waste operations, 
and transformational approaches, which could involve alternate 
technologies and other approaches.
    Coincident with these planning efforts, we are also proposing to 
focus additional resources towards technology development, particularly 
for tank waste and groundwater remediation. We are looking to make 
investments in new technologies and computer modeling.
    In summary, if confirmed, I will assure that EM uses science and 
technology, robust project management, and our intergovernmental 
partnerships to reduce the cost and schedule of the program.
                           management issues
    Question. The Assistant Secretary for Environmental Management is 
responsible for cleanup activities occurring at Department of Energy 
(DOE) sites across the country.
    What are your views on the roles and responsibilities of field 
managers relative to those of Environmental Management (EM) 
headquarters managers?
    Answer. The roles and responsibilities of field managers include 
the management and direction of the safe, secure, compliant, and 
effective execution of the Environmental Management (EM) projects. The 
field managers and the field staff manage the contracts and oversee the 
contractors' performance in order to deliver the EM projects on time 
and within cost. The roles and responsibilities of EM headquarters 
managers include overseeing the performance of the field sites as well 
as policy development, budget formulation, and addressing the field 
offices' needs in order to accomplish the objectives of the EM mission.
    Question. What is your view of EM's organizational structure? Is 
there a well-delineated and consistent chain of command and reporting 
structure from the field staff to headquarters staff, from the 
contractors to DOE officials, and from the Office of Environmental 
Management to the Secretary of Energy and other DOE officials?
    Answer. I believe that our current chain of command and reporting 
structure are adequate to perform the EM program mission. Improving the 
efficiency of EM is always of critical importance. The National Academy 
of Public Administration (NAPA) completed a detailed review of several 
aspects of the EM program between April 2006 and December 2007. One 
area that was carefully analyzed was organizational efficiency. NAPA 
provided 20 recommendations in this area and EM implemented 18 of them. 
However the former Assistant Secretary for EM deferred implementation 
of the remaining two: establishment of a Chief Business Officer 
position and realignment of two Deputy Assistant Secretary offices 
between the Chief Business Office and the Chief Operations Office. I 
believe that these recommendations have merit and I will carefully 
review those recommendations to identify improved organizational 
efficiency.
    Question. Do the field offices have enough autonomy and flexibility 
to work with the contractors at the sites to get the cleanup finished 
in a safe and efficient manner?
    Answer. It is my philosophy to delegate as much authority as 
possible and appropriate to the field offices and their managers. If 
the field managers had more authority than they do now, the EM program 
might be more efficient.
    Question. In your opinion, should the field offices have more 
autonomy than they currently have?
    Answer. Yes. The additional authority would come with the 
responsibility to deliver excellent performance. Performance is 
measured by the results obtained, and the manner in which they are 
achieved. Therefore, we will be seeking to align authority with 
performance at each site to deliver projects on time and within cost.
    Question. The EM program has used a variety of contracting methods, 
including management and operating contracts, cost plus award fee 
contracts, cost plus incentive fee contracts, performance-based, fixed-
priced contracts, and closure contracts, among others.
    What is your view of the utility and appropriate role of these, or 
other, contracting methods, and what principles do you believe DOE 
should follow when entering into EM contracts in the future?
    Answer. Each contracting method has a ``sweet-spot'' for its 
application. During the acquisition planning phase, there is continuing 
improvement to appropriately match the type of work and program 
requirements with the contract approach. For the following types of EM 
work, the successful contract approaches generally are:

(1) Cleanup Work

        <bullet> For well defined and repetitious activities--fixed 
        unit rate contracts are optimal (for instance, mill tailing 
        relocations at past closure sites such as Grand Junction and 
        Monticello);
        <bullet> For work with relatively high confidence in the scope 
        definition, clear end-state, most regulatory decisions have 
        been made, stable and predictable funding, and it will take 5 
        to 7 years to complete--closure or completion contracts, which 
        are typically cost plus incentive fee contracts are optimal 
        (for instance, Rocky Flats, Mound, and Fernald);
        <bullet> For work with relatively high confidence in the scope 
        definition, discrete portions with clear end-states, regulatory 
        decisions have been made, fluctuating funding, and 10 years or 
        less to complete cleanup--the optimal contract type is cost 
        plus incentive fee (for instance, Hanford River Corridor and 
        Idaho Cleanup);
        <bullet> For work with various levels of scope definition, 
        discrete portions have clear end-states and regulatory 
        decisions made, fluctuating funding and more than 10 years to 
        complete--the successful contracts are cost plus award fee 
        contracts with performance-based incentives (for instance, main 
        site cleanup contracts, such as Hanford, Oak Ridge; operations 
        of individual processing facilities, such as Idaho Advanced 
        Mixed Waste Treatment and Oak Ridge Transuranic Waste 
        facilities); and
        <bullet> For work with continual operations of nuclear 
        facilities and disposal facilities for more than 10 years--the 
        successful contracts are management and operating contracts 
        (Savannah River Site and Carlsbad).

(2) Construction Projects

        <bullet> For storage of high-level waste or spent nuclear fuel 
        canisters, storage approach used in previous applications, 
        minimal technology issues, typically $100-200 million or less, 
        and 3 years or less to completion--the optimal contract type is 
        fixed price (for instance, Savannah River Site Glass Storage 
        Facility, Hanford Spent Nuclear Fuel Storage Facility);
        <bullet> For packaging or disposal of low-level or transuranic 
        waste, well-understood technology, technology used in previous 
        applications, typically $100-200 million but could be up to 
        $500 million, and 4 to 7 years to completion--the optimal 
        contracts are fixed unit rate contracts (Oak Ridge Disposal 
        Cell, Idaho Advanced Mixed Waste Treatment Project, WIPP 
        Transportation, Oak Ridge Transuranic Waste Treatment Project); 
        and
        <bullet> For treating and stabilizing high-level waste or 
        complex low-level waste, first of a kind technology, 
        significant technical issues, nuclear facilities, $500 million 
        and greater, 5 years and greater to completion--the successful 
        contracts are cost plus award fee contracts with multiple 
        incentives, such as performance-based incentives, award fee, 
        operational fee, and schedule fee.
                                mission
    Question. DOE has offered changing views, over the lifetime of the 
EM program, as to whether the program should focus on cleaning up the 
sites within its purview as of a date certain or whether the program 
should have an ongoing mission of cleaning up all surplus DOE 
facilities, as the facilities become excess, over time.
    Do you believe there is a point at which the EM program should stop 
taking surplus buildings, facilities, or waste streams from other 
components of the DOE into the EM program for decommissioning, 
decontamination, and disposal?
    Answer. No. I don't believe that the EM program should cease 
accepting surplus facilities from other DOE programs, but continue to 
accept them. From a technical standpoint, placing DOE's excess 
facilities under EM makes business sense because EM possesses both the 
experience and expertise to move these assets to ultimate disposition 
or demolition, more so than other DOE programs. There is a consensus 
within DOE that placing all surplus assets under the purview of one 
program leads to management efficiencies and produces long-term cost 
savings. Finally, by continuing the transfer of surplus assets to EM, 
the decontamination and demolition of excess facilities will result in 
the reduction of the legacy footprint. This allows other DOE programs 
to expand their current missions or launch important new ones, such as 
those in science, energy, and national security, or use the lands for 
beneficial reuse.
    Question. If confirmed, what requirements would you place on the 
other DOE programs before you would take additional buildings, 
facilities or waste into the EM program?
    Answer. The EM program does have existing stringent requirements it 
applies to surplus assets, prior to accepting them from other DOE 
programs. These established criteria, based on formal DOE orders and 
technical policies for facilities and wastes, are applied to each 
individual asset nominated for transfer to EM. Furthermore, in concert 
with the criteria, EM implements a rigorous in-person assessment 
process, in which EM technical experts walk down and inspect nominated 
assets to determine if they meet the transfer criteria. This process 
ensures that any asset deemed surplus by other DOE programs is truly 
``transfer ready,'' and complies with EM's standards for acceptance.
    Question. Do you believe it is an appropriate policy for the EM 
program to ``go out of business'' at some point and leave the remainder 
of newly-generated waste as the responsibility of existing DOE 
programs? If not, in your view, how should newly-generated wastes be 
managed and which program (EM or the program generating the waste) 
should budget for these activities?
    Answer. I believe that it is appropriate for the generating 
programs to be responsible for and budget for newly-generated waste. 
Currently, the Department's policy is that EM is responsible for the 
final disposition of legacy waste, while requiring landlord programs to 
manage newly-generated waste at their sites. However, in specific 
instances when EM is recognized as having unique experience and 
expertise with certain waste types such as transuranic waste, 
exceptions may be necessary on a case-by-case basis. Newly-generated 
waste responsibility was transferred to landlord programs in order to 
encourage waste minimization and proper ``ownership'' for wastes. I 
believe this is a good concept.
    Question. Do you believe that making the program responsible for 
newly-generated waste would incentivize the program to minimize the 
amount of waste created or, conversely, would it result in the program 
storing waste, perhaps indefinitely?
    Answer. EM and the rest of the Department comply with DOE Order 
435.1, Radioactive Waste Management, which defines the requirements for 
the management and minimization of radioactive waste within DOE. The 
Order provides specific requirements for the management and timely 
disposition of each radioactive waste type, such as high-level waste, 
transuranic waste, low-level waste, and mixed wastes. The Order also 
defines the responsibilities of each headquarters element, particularly 
those programs that generate these waste types as part of their 
operations mission.
    Question. In drafting the National Defense Authorization Act for 
Fiscal Year 2006, this committee did not adopt the proposal in the 
President's budget request to transfer certain activities from the EM 
program into the National Nuclear Security Administration (NNSA).
    To your knowledge, are there any plans to make a similar proposal 
in the fiscal year 2010 budget request?
    Answer. There are no plans to make a similar proposal in the fiscal 
year 2010 budget request.
    Question. The EM program demonstrated that accelerating cleanup at 
specific sites could result in a more cost effective approach to 
cleanup over the long term. After the Rocky Flats and the Fernald Sites 
were completed, the accelerated approach was abandoned.
    If confirmed would you look at renewing an accelerated approach for 
specific sites if significant long-term cost savings could be achieved?
    Answer. Over the past year and a half, the EM program has conducted 
strategic planning analysis, which indicates that substantial benefit 
in terms of life cycle cost savings and cleanup completion can be 
achieved with additional investments in the areas of decontamination 
and decommissioning of facilities, remediation of contaminated soils 
and groundwater, and disposition of solid waste (low-level and 
transuranic) to achieve footprint reduction. These results were 
discussed in the EM progress report that the National Defense 
Authorization Act for Fiscal Year 2008 required, and was submitted to 
Congress in January 2009.
    We are renewing the accelerated approach with implementation of the 
footprint reduction initiative with the $6 billion from the American 
Recovery and Reinvestment Act of 2009 (Recovery Act).
    Question. Do you believe this promise of accelerated cleanup has 
yet been realized, and if not, why not?
    Answer. We are renewing the accelerated approach with the Recovery 
Act funding. Our strategic planning analysis was based on achieving a 
90 percent footprint reduction by 2015. The Recovery Act funding will 
allow 40-50 percent footprint reduction by 2011, and will go a long way 
in achieving this goal.
                               end states
    Question. A previous Assistant Secretary sought to develop ``end 
states'' documents for each major site in the EM program depicting the 
residual contamination levels remaining at each site after the 
completion of cleanup.
    What is the status of these ``end states'' for each major site?
    Answer. The end-state documents were intended as a tool to help 
focus discussions with the Department's regulators and stakeholders on 
the likely future land uses of contaminated lands as a means to 
facilitate the early identification of remedial action objectives and 
appropriate response actions. The Department's field office personnel, 
the U.S. Environmental Protection Agency, and State regulators have 
incorporated these end-state documents in their discussions and 
negotiations.
    Question. If confirmed, would you continue efforts to reach an 
agreed upon ``end state'' with the State and Federal environmental 
regulators at each site, or in your view is there a different way to 
approach the issue of what is clean enough?
    Answer. The Department will continue to work with our regulators on 
identifying and attaining, whenever possible, those land uses and end 
states we agree represent both a desirable and viable outcome. We are 
doing this, and will continue to do so, in accordance with the 
applicable Federal and State requirements governing our cleanup 
activities. This process ultimately determines the scope of the cleanup 
and viable future land uses, and therefore is critical to our mission.
                         technology development
    Question. Do you believe that the EM program has conducted 
sufficient technology development so that a treatment and disposition 
pathway exists for all identified waste streams under the program?
    Answer. The treatment and disposal of DOE low-level and mixed low-
level waste is not dependent on additional technology development. 
While there may be small volumes of challenging waste streams 
identified through future cleanup activities, it is expected that 
existing technologies will enable treatment and disposal of the 
remaining waste.
    Currently, we do not foresee any technology development necessary 
to support disposal of transuranic wastes. While there are some 
innovative packaging and characterization techniques that still require 
regulatory approval prior to implementation, the research and 
development of these techniques have been completed, and is now being 
demonstrated through the regulatory process.
    In the area of highly-radioactive waste in underground tanks 
retrieval and processing, there continues to be technology development 
needs, and they have been identified and planned within the EM 
program's Engineering and Technology Roadmap.
    Question. If any orphan waste streams--those for which there is no 
identified disposition pathway--exist within the EM program, what 
technology development or other efforts would you undertake, if 
confirmed, to address them?
    Answer. The orphan waste streams challenges that currently exist 
within EM are programmatic in nature. For example, EM has a small 
quantity of low-level and transuranic waste (greater-than-Class C low-
level waste), which does not meet the current waste acceptance criteria 
for existing disposal facilities. EM needs to complete the process for 
siting a facility for greater-than-Class C low-level waste, which could 
accommodate those particular wastes.
    Question. What, in your view, are the continuing requirements for 
developing and fielding new technologies, and what are the highest 
priorities?
    Answer. Continuing technology development and deployment is a key 
element of the EM program's strategy to reduce the technical risk and 
uncertainty of EM projects. The highest priority for EM is to develop 
new technologies for tank waste systems and for groundwater 
remediation.
    Tank waste is by far the Department of Energy's most significant 
environmental, safety, and health risk. EM plans to retrieve this 
highly-radioactive waste from storage tanks and convert it into stable 
waste forms (such as glass) using treatment facilities. Because of the 
unique and hazardous nature of this radioactive waste, new technologies 
are needed to:

          (1) Retrieve waste to the maximum extent possible in an 
        efficient manner;
          (2) Improve glass formulations that can increase the amount 
        of waste in each glass canister, which will reduce operating 
        costs;
          (3) Improve glass melters which will increase production 
        throughput and decrease costs; and
          (4) Improve processes to remove non-radioactive components, 
        such as aluminum, from the tank waste in order to increase 
        glass waste loading and production throughput.

    Innovative groundwater remediation technologies are also needed to:

          (1) Treat subsurface contamination through bioremediation or 
        reactive sorptive barriers that can be more effective and 
        efficient than current methods, and
          (2) More effectively predict contaminant migration resulting 
        in better remediation methods.

    The National Academy of Sciences supports a significant and ongoing 
research and development program, as delineated in the EM program's 
Engineering and Technology Roadmap to address these unique technical 
challenges.
                        workforce restructuring
    Question. If confirmed, your duties could involve the review and 
approval of workforce restructuring plans at sites under the EM 
program.
    Please describe your general approach and philosophy in reviewing 
workforce restructuring plans.
    Answer. The EM program complies with DOE Order 350.1, Contractor 
Human Resource Management Programs, as well as all other applicable 
requirements, and we direct our contractors to do the same as they plan 
and execute workforce restructuring actions.
    Question. Given the nature of their work, cleanup workers are 
fundamentally in a position of ``working themselves out of a job.''
    How do you believe this particular challenge is best handled from 
both a corporate perspective and as a manager of these workers?
    Answer. At most of our remaining sites, the cleanup mission has 
many more years until completion. To manage work effectively at our 
sites, there is a broad life-cycle to perform characterization, plan, 
decontaminate and decommission, and then beneficially re-use. We need 
workers with different skills and specializations at each phase of that 
life-cycle. The specialized skills and certifications our workers 
acquire doing EM work is highly marketable.
    The Department of Energy resources, in partnership with tribal 
nations, the States, industry and other regional stakeholders, can be 
leveraged for beneficial reuse at our sites. As part of DOE's footprint 
reduction effort, designated tracts of land would be transferred to 
other government programs, communities, or the private sector for rapid 
development of large scale facilities for any number of uses. The 
outcomes of transforming the Department's sites for beneficial reuse 
could include: (1) industrial uses sited on ``brownfields'' with 
existing infrastructure and a trained workforce; (2) transition of the 
current workforce and recruit the future workforce to take advantage of 
the wealth of technical knowledge and operational experience; and (3) 
potential to create new jobs for the long term.
                 waste incidental to reprocessing (wir)
    Question. One of the biggest challenges of the EM program is 
emptying the large tanks of highly radioactive waste that exist at 
defense nuclear sites in South Carolina, Washington, and Idaho. In the 
National Defense Authorization Act for Fiscal Year 2005, Congress 
granted DOE, in consultation with the Nuclear Regulatory Commission 
(NRC), the authority to determine that portions of this waste are not 
high level radioactive waste and thus DOE may leave residue that meets 
the requirements of the provision at the bottom of the tanks in South 
Carolina and Idaho after these tanks are otherwise emptied.
    How is DOE using this new authority?
    Answer. The Department has used this authority successfully at both 
the Savannah River Site and at the Idaho National Laboratory. At 
Savannah River Site, we use that authority to dispose of the low-
activity fraction of tank waste in onsite ``saltstone'' vaults, which 
is facilitating the emptying of the highly-radioactive waste tanks. 
Savannah River Site is in the process of removing residuals from 
several tanks, and is working closely with Nuclear Regulatory 
Commission (NRC), the State, and the U.S. Environmental Protection 
Agency, using the 2005 National Defense Authorization Act (NDAA) 
authority, to ultimately close these and the other highly-radioactive 
waste tanks. At Idaho, in November 2006, the former Secretary of Energy 
determined that the residual wastes in the 15 tanks were no longer 
high-level waste, and 11 of those tanks were filled with cement. In 
undertaking these actions, the Department consulted with the NRC, in 
accordance with the 2005 NDAA authority, and will continue to do so in 
the future.
    Question. If confirmed will you ensure that the NRC has full access 
to documents and information at these sites that the NRC determines is 
needed to allow them to conduct their responsibilities?
    Answer. Yes. The NRC has had, and will continue to have full access 
to documents and information at these sites that the NRC determines is 
needed to allow them to conduct their responsibilities.
                             waste disposal
    Question. Completion of cleanup at a number of EM sites depends on 
the timely shipment of quantities of transuranic waste to the Waste 
Isolation Pilot Plant (WIPP) in New Mexico for disposal. In some cases, 
DOE is under regulatory deadlines for completing shipments to WIPP.
    What regulatory deadlines do the EM program currently face related 
to WIPP shipments and what is the current progress against those 
deadlines?
    Answer. At the Idaho National Laboratory, the Idaho Settlement 
Agreement (Settlement Agreement) requires DOE to maintain a running 
average of 2,000 m3 of transuranic (TRU) waste shipped offsite yearly. 
DOE is well ahead of this milestone. The Settlement Agreement also 
includes milestones for completing shipment of 65,000 m3 TRU (target 
completion date of 12/31/2015, but no later than 12/31/2018). DOE is on 
track to complete this milestone ahead of schedule. The Idaho Site 
Treatment Plan requires a more aggressive shipping rate of 4,500 m3 of 
TRU per year. DOE continues to ship TRU waste from Idaho at a rate that 
exceeds this requirement.
    At Oak Ridge, the Site Treatment Plan defines specific volume goals 
for contact handled (CH) and remote handled (RH) TRU waste each year. 
While DOE has met its CH milestones to date and met the first RH 
milestone for start of RH shipments, DOE recently requested an 
extension to the 4/30/2009 milestone to have processed 35 m3 of RH TRU 
waste. This extension was required due to unexpected technical issues 
encountered during waste processing (water was found to be present in 
many of the TRU canisters retrieved for processing and shipping). DOE 
anticipates that these issues will be addressed and future milestones 
will be met.
    At Nevada, the Site Treatment Plan requires the completion of the 
legacy TRU project by the end of April 2009. DOE is on track to meet 
this milestone. Three shipments remain to be completed and are 
scheduled to occur before 4/30/2009.
    At Los Alamos, the Consent Order requires the cleanup of Area G to 
be completed by the end of 2015. While there are no specific deadlines 
related to shipment of TRU, the TRU within Area G must be processed and 
shipped offsite in time to support Area G closure in 2015.
    Regarding Hanford, DOE and the regulators have reached agreement on 
revised milestones for TRU waste in the Tri-Party Agreement. These 
milestone revisions are currently out for public review.
    Question. Are you aware of any issues that jeopardize DOE's ability 
to meet these deadlines? If so, what is DOE doing to address these 
issues?
    Answer. We are not aware of any specific issues at this time. 
However, given that much of the transuranic waste has been buried for 
many decades at some of our sites, it is likely that DOE may encounter 
challenges regarding the condition of the waste as it is retrieved. DOE 
has carefully developed a detailed waste processing and 
characterization strategy and is working closely with the regulators.
    Question. What, if any, additional permits or permit modifications 
are needed for WIPP in order to meet these deadlines?
    Answer. There are no additional permits or permit changes needed to 
support these milestones.
                         waste treatment plant
    Question. Maintaining the steady state funding commitment, not 
changing requirements, and not changing the design of the facility, are 
all necessary actions to ensure that the Waste Treatment Plant (WTP) is 
completed within its current baseline cost and schedule.
    If confirmed would you plan to make any changes to WTP funding, 
requirements, or design?
    Answer. The stable funding level of $690 million a year has 
provided the WTP project with stability and predictability, which 
affords the contractor the ability to plan the work, make commitments 
to subcontractors and suppliers, and minimize turnover of the 
workforce. The requirements are appropriate to build a functioning 
plant, although there are still certain opportunities to refine the 
requirements for a more cost effective plant. There are several 
technical issues, which are on schedule to be resolved by the end of 
December 2009, which should permit the finalizing of the design.
                             enduring sites
    Question. Cleanup under the EM program occurs not only at closure 
sites, but at DOE national laboratories and other sites with ongoing 
missions. These locations are sometimes distinguished from sites that 
will be closed by use of the term ``enduring sites.''
    Does the EM program approach cleanup differently at closure sites 
than at enduring sites?
    Answer. No. Cleanup work across the entire complex is conducted in 
accordance with the applicable requirements from Federal environmental 
laws, primarily the Comprehensive Environmental Response, Compensation, 
and Liability Act and the Resource Conservation and Recovery Act. The 
Department consistently applies these requirements in accordance with 
site-specific conditions, and has entered into agreements with the 
States in which cleanup sites are located and the U.S. Environmental 
Protection Agency to come into compliance with these laws.
    Question. How should the EM program best manage the interfaces 
between its cleanup operations and other ongoing missions at the 
enduring sites?
    Answer. The EM program works closely with senior managers and staff 
of the landlord programs and those programs' sites in planning for and 
executing the cleanup. This includes their active involvement in 
developing scope, cost, and schedule baselines, formulating budgets, 
and overseeing execution. With these close interactions, the Department 
can develop an overall approach that appropriately prioritizes cleanup 
in support of and recognizing the enduring sites' ongoing and future 
missions.
    Question. Does the EM program prioritize work differently at 
enduring sites, and if so, in what way?
    Answer. In planning its program, EM develops an integrated priority 
list for all its cleanup activities across the entire DOE complex at 
both closure and enduring sites based on risk categories. These 
categories, in descending order of risk, are: (1) highly-radioactive 
liquid waste in underground tanks; (2) nuclear materials (e.g., uranium 
and plutonium) and spent nuclear fuel; (3) transuranic and low-level 
radioactive waste; (4) soil and groundwater remediation; and (5) 
decontamination and decommissioning of surplus contaminated facilities. 
The EM program overlays site-specific regulatory compliance milestones 
and the need to support ongoing and future missions at enduring sites 
to the overall program priorities in order to prioritize its work at 
each site.
                          design basis threat
    Question. Some of the DOE sites including EM sites will not achieve 
compliance with the current design basis threat and do not plan to 
achieve compliance.
    Given the seriousness of the need to secure nuclear materials, both 
abroad and at home, do you believe that this is a sufficiently rapid 
response to the threats currently outlined by the intelligence 
community and against which DOE has agreed it must defend at its 
nuclear sites?
    Answer. The EM program is in compliance with the Department's 2005 
Design Basis Threat (DBT) policy and is transitioning to the 
requirements of the Graded Safeguards Protection (GSP) policy issued in 
August 2008. This policy provides a robust framework considering the 
broad spectrum of threats.
    Question. If confirmed, what actions would you undertake to 
consolidate and more rapidly secure any special nuclear material 
existing within the EM program?
    Answer. The EM program has been aggressively consolidating special 
nuclear materials and will continue to do so:

        <bullet> At Savannah River Site, surplus plutonium has been 
        consolidated from Rocky Flats, and will continue to be 
        consolidated from Hanford and the National Nuclear Security 
        Administration sites, such as Lawrence Livermore and Los Alamos 
        National Laboratory.
        <bullet> At Oak Ridge and Portsmouth, surplus uranium has been 
        consolidated from Rocky Flats and Fernald.
        <bullet> At Savannah River Site and Idaho, spent nuclear fuel 
        has been consolidated from West Valley, and will continue to be 
        consolidated from U.S. university research reactors, and 
        foreign research reactors.
        <bullet> At Hanford, onsite spent nuclear fuel has been 
        consolidated into a single location.

    Question. Do you agree that, even with a primary focus on 
accelerating cleanup, it is still an essential responsibility of the EM 
program to secure these materials against the threats existing now?
    Answer. Yes. The EM program is committed to protect its special 
nuclear materials against the prevailing threat level while expediting 
the cleanup progress. EM has successfully reduced the number of 
facilities and sites that possess special nuclear materials from 13 to 
2, and will continue to protect these facilities in accordance with DOE 
policy.
                             yucca mountain
    Question. In the EM 5-year plan published in early 2007, a number 
of program-specific uncertainties that could impact the overall cleanup 
scope, schedule, and cost are identified. Among those uncertainties 
identified is the possibility of a delay in the availability of Yucca 
Mountain. EM has indicated that a delay in Yucca Mountain would lead to 
the delay in site completion and increase storage costs for high-level 
waste and spent nuclear fuel.
    What increases in storage costs for high-level waste and spent 
nuclear fuel and in the length of the delay can be expected if Yucca 
Mountain is closed?
    Answer. Over the period of the next two decades, the delay in the 
establishment of a permanent high-level waste repository will in no way 
impact the current scope, schedule, and cost for treatment and storage 
of defense spent nuclear fuel and high-level waste. The Secretary of 
Energy is in the process of establishing a Blue Ribbon Commission/Panel 
to provide recommendations to the Department on spent nuclear fuel and 
high-level waste. The panel needs to provide those recommendations and 
the Department needs to determine the path forward for that waste prior 
to being able to assess the length of potential delays or additional 
storage costs. The EM program manages its life cycle cost in a 
detailed, rigorous manner and, therefore, will be able to ascertain any 
impacts of the selected path forward. EM will work diligently with the 
committee to provide any required information on the impacts to EM's 
life cycle cost.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. I agree that, if I am confirmed as Assistant Secretary 
for Environmental Management, I will appear before this committee and 
other appropriate committees of Congress.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Energy for Environmental Management?
    Answer. Yes. I agree that if I am confirmed, I will appear before 
this committee or to a designated member of this committee, and provide 
information subject to appropriate and necessary security protection 
with respect to my responsibilities as Assistant Secretary of 
Environmental Management.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes. If confirmed, I agree to ensure that testimony, 
briefings, and other communications of information will be provided to 
this committee and its staff and other appropriate committees.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes. If confirmed, I agree to provide documents, including 
copies of electronic forms of communication, in a timely manner when 
requested by a duly constituted committee, or consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents.
                                 ______
                                 
    [The nomination reference of Dr. Ines R. Triay follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 31, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Ines R. Triay, of New Mexico, to be an Assistant Secretary of 
Energy (Environmental Management), vice James A. Rispoli, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Ines R. Triay which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Dr. Ines R. Triay
    Dr. Ines R. Triay is the Principal Deputy Assistant Secretary for 
the U.S. Department of Energy's Environmental Management Program and 
has been acting as the Assistant Secretary since November 2008. She has 
devoted her career to the safe cleanup of the environmental legacy of 
the Nation's Cold War nuclear weapon production and research 
activities. This is the largest, most diverse, and technically complex 
environmental cleanup program in the world, originally involving more 
than 100 geographic sites located in more than 30 States.
    Prior to her current position, she served as the cleanup program's 
Chief Operations Officer and Deputy Chief Operations Officer. During 
her tenure in these positions, the program completed the cleanup of the 
Department's Rocky Flats site in Colorado and the Fernald site in Ohio. 
She also played an instrumental role in the commencement of remote-
handled transuranic waste disposal operations at the Department's Waste 
Isolation Pilot Plant in New Mexico.
    Prior to her executive positions in Washington, DC, she served as 
Manager of the Department's Carlsbad Field Office in New Mexico. During 
her tenure there, the number of transuranic waste shipments to the 
Waste Isolation Pilot Plant increased from 1 or 2 per week to 25 per 
week. She also spearheaded a national effort to significantly 
accelerate cleanup of transuranic waste sites, culminating in a plan 
that completes the disposal of all legacy transuranic waste about 20 
years early. Before managing the Carlsbad Field Office, she spent 14 
years at Los Alamos National Laboratory leading efforts in subsurface 
radionuclide migration, waste characterization and disposal, and 
environmental remediation.
    Her honors include the 2007 Wendell D. Weart Lifetime Achievement 
Award, the 2007 Presidential Rank Award, the American Society of 
Mechanical Engineers' 2003 Dixy Lee Ray Award for Environmental 
Protection, the National Atomic Museum's 2003 National Award of Nuclear 
Science, and numerous awards from the Department and Los Alamos 
National Laboratory recognizing her for excellence in performance.
    Dr. Triay received her bachelor degree in chemistry, magna cum 
laude, and her doctorate degree in physical chemistry from the 
University of Miami in Florida. She is a member of the American 
Chemical Society and has produced more than 100 papers, reports, and 
presentations for professional conferences and workshops, as well as 
major trade publications.

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Ines R. 
Triay in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ines Ramona Triay.

    2. Position to which nominated:
    Assistant Secretary for Environmental Management, U.S. Department 
of Enery.

    3. Date of nomination:
    March 31, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 30, 1958; Havana, Cuba.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to John Harvey Hall.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Miami, Coral Gables, FL; 1976-1985; B.S. Chemistry 
Major, 1980; Ph.D. in Chemistry, 1985;

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
         Dates of Employment            Title/Job Description           Employer                City/State
----------------------------------------------------------------------------------------------------------------
10/2007 to Present...................  Principal Deputy         U.S. Department of       Washington, DC.
                                        Assistant Secretary      Energy.
                                        for Environmental
                                        Management.
05/2005 to 10/2007...................  Chief Operating Officer  U.S. Department of       Washington, DC.
                                        for Environmental        Energy.
                                        Management.
01/2005 to 05/2005...................  Acting Carlsbad Field    U.S. Department of       Carlsbad, NM.
                                        Office Manager.          Energy.
01/2004 to 05/2005...................  Deputy Chief Operating   U.S. Department of       Washington, DC.
                                        Officer for              Energy.
                                        Environmental
                                        Management.
05/1999 to 01/2004...................  Carlsbad Field Office    U.S. Department of       Carlsbad, NM.
                                        Manager Waste            Energy.
                                        Isolation Pilot Plant.
02/1994 to 05/1999...................  Group Leader, Chemical   Los Alamos National      Los Alamos, NM.
                                        Science and Technology   Laboratory, University
                                        Carlsbad Field Office    of California.
                                        Manager Waste
                                        Isolation Pilot Plant.
11/1985 to 02/1994...................  Staff member, Isotope    Los Alamos National      Los Alamos, NM.
                                        and Nuclear Chemistry    Laboratory, University
                                        Division.                of California.
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Chemical Society (27 years).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    On March 25, 2007, I made a $2,300 contribution to New Mexico 
Governor Bill Richardson while he was running in the Presidential 
Democratic primary.
    On November 16, 2005, I made a $1,000 contribution to New Mexico 
Senator Jeff Bingaman (D).
    On October 13, 2005, I made a $500 contribution to New Mexico 
Senator Pete Domenici (R).

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    2009, Department of Energy Secretary's Achievement Award.
    2007, Presidential Rank Award.
    2007, Wendell D. Weart Lifetime Achievement Award.
    2004, National Award for Nuclear Science from the Einstein Society 
of the National Atomic Museum.
    2003, American Society of Mechanical Engineers Dixy Lee Ray Award 
for significant achievements and contributions in the field of 
environmental protection,
    2003, Woman of Achievement Award from the Radiochemistry Society.
    1999, Albuquerque Operations Office Manager's Performance 
Excellence Award for ``Ship to WIPP.''
    1998, Los Alamos National Laboratory Distinguished Performance 
Award for Nonmixed Waste Sampling/Chemical Analysis for Transuranic 
Waste Characterization/Certification Project.
    1997, Los Alamos National Laboratory Outstanding Mentor Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Attached.
    [Nominee responded and the information is retained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Attached are the last two presentations that I have given: one in 
the Energy Communities Alliance Annual Conference (2/12/2009) and the 
other in the Waste Management Symposium (3/2/2009).
    [Nominee responded and the information is retained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Ines Ramona Triay.
    This 7th day of April, 2009.

    [The nomination of Dr. Ines R. Triay was reported to the 
Senate by Chairman Levin on May 6, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 20, 2009.]


 
  NOMINATIONS OF ANDREW C. WEBER TO BE ASSISTANT TO THE SECRETARY OF 
 DEFENSE FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS; DR. 
  PAUL N. STOCKTON TO BE ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND 
    DEFENSE AND AMERICAS' SECURITY AFFAIRS; THOMAS R. LAMONT TO BE 
 ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS; AND 
CHARLES A. BLANCHARD TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE AIR 
                                 FORCE

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Webb, Hagan, 
Begich, and McCain.
    Other Senators present: Senators Durbin and Lugar.
    Also present: Representative Sam Farr.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Jonathan D. Clark, counsel; Madelyn 
R. Creedon, counsel; Richard W. Fieldhouse, professional staff 
member; Michael J. Kuiken, professional staff member; and 
Gerald J. Leeling, counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Daniel A. Lerner, professional staff member; David M. Morriss, 
minority counsel; Diana G. Tabler, professional staff member; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Kevin A. Cronin, Mary C. 
Holloway, and Jessica L. Kingston.
    Committee members' assistants present: Gordon I. Peterson, 
assistant to Senator Webb; Roger Pena, assistant to Senator 
Hagan; Gerald Thomas, assistant to Senator Burris; and Lenwood 
Landrum and Sandra Luff, assistants to Senator Sessions.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the 
committee considers the nominations of Andrew Weber to be 
Assistant to the Secretary of Defense for Nuclear and Chemical 
and Biological Defense Programs; Paul Stockton to be Assistant 
Secretary of Defense for Homeland Defense and Americas' 
Security Affairs; Thomas Lamont to be Assistant Secretary of 
the Army for Manpower and Reserve Affairs; and Charles 
Blanchard to be General Counsel of the Air Force.
    We welcome our nominees and their families to today's 
hearing. Senior Defense Department officials put in long hours 
every day. We appreciate the sacrifices that our nominees, but 
frankly even more importantly that their families are willing 
to make to serve their country.
    Each of our nominees has a distinguished background. Mr. 
Weber spent 24 years in public service, serving most recently 
as Adviser for Threat Reduction Policy in the Office of the 
Secretary of Defense, a position in which he has helped to run 
the Nunn-Lugar Cooperative Threat Reduction Program. Dr. 
Stockton has been a senior member of the faculty at the Naval 
Postgraduate School and Stanford University's Center for 
International Security and Cooperation for almost 20 years. Mr. 
Lamont served in the Illinois National Guard for over 25 years 
while working as a partner in two Illinois law firms and 
holding a succession of positions in State government. Mr. 
Blanchard served as General Counsel of the Army from 1999 to 
2001 before joining the Phoenix office of a major law firm.
    If confirmed, our nominees will play a critical role in 
helping the Department of Defense (DOD) address any number of 
critical challenges and difficult issues. These challenges 
range from ensuring that our nuclear stockpile remains safe, 
secure, and reliable to determining the appropriate role of our 
Armed Forces in securing the border with Mexico at a time of 
unprecedented drug violence and a potential pandemic outbreak 
of swine flu, and from addressing the burdens and stress 
imposed on our soldiers and their families by repeated 
deployment in two wars, to ascertaining the appropriate legal 
status of individuals detained at Guantanamo Bay, Cuba.
    We look forward to the testimony of our nominees on these 
important issues, and I now turn it over to Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Senator Levin.
    I want to thank our colleagues from the Senate for being 
here this morning, and from the House, to introduce our 
nominees. I'll be brief except to say welcome to the nominees. 
I thank them and their families for their willingness to serve 
in the new administration.
    At the outset, I join you in expressing our sorrow over the 
deaths of five soldiers and wounding of three others at Camp 
Liberty at the hands of another soldier and extend our 
condolences and sympathy to the families of all who are 
involved.
    Mr. Chairman, in August 1999, I had the pleasure of 
introducing Mr. Blanchard to the committee at the hearing on 
his nomination to be General Counsel of the Army. I applaud his 
willingness to once again depart his law practice in Phoenix 
and return as the nominee to be the General Counsel of the 
United States Air Force.
    Mr. Blanchard is extraordinarily well qualified to assume 
these duties. His academic credentials include outstanding 
achievement at the Lewis and Clark College and at Harvard Law 
School, where he graduated first in his class. He completed a 
master's degree at the John F. Kennedy School of Government and 
subsequently clerked for one of Arizona's greatest jurists, 
Justice Sandra Day O'Connor.
    In addition to his prior service as General Counsel of the 
Army, Mr. Blanchard's contributions in the public sector are 
particularly noteworthy. He was chief counsel to General Barry 
McCaffrey in his role as drug czar in the White House Office of 
National Drug Control Policy from 1997 to 1999. In 2003, Mr. 
Blanchard acted as interim Homeland Security Director in the 
office of Governor Janet Napolitano, crafted a homeland 
security plan and helped establish an Arizona Office of 
Homeland Security. From 1991 to 1995, Mr. Blanchard served as 
an Arizona State senator, where he chaired the judiciary 
committee.
    It's gratifying that Mr. Blanchard has again stepped 
forward to serve his country and I know he will be heavily 
relied on by Secretary of the Air Force Donley and General 
Schwartz.
    Mr. Andrew Weber, the nominee for the position of Assistant 
Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs, as I noted, will be introduced by our 
esteemed colleague Senator Lugar. However, I am aware he has 
worked in DOD since 1996 as the Adviser for Threat Reduction 
Policy. He has over 24 years of Government service, most of 
which has been dedicated to reducing the threat of weapons of 
mass destruction.
    Thomas Lamont, the nominee for Assistant Secretary of the 
Army for Manpower and Reserve Affairs, is an accomplished 
attorney. He'll be introduced by Senator Durbin. He recently 
completed a 25-year career of service as a judge advocate with 
the Illinois Army National Guard.
    The Army is severely stressed today and we know that its 
leaders at every level are working hard to craft programs and 
policies that will enable soldiers and their families to meet 
the great demands being placed on them. Mr. Lamont, I know you 
will be a positive influence in assisting Army leaders in 
addressing these critically important problems.
    Yesterday I met with wounded warriors at Walter Reed Army 
Medical Center. I learned from them that the staff is stressed, 
case managers have very high case loads, and that high turnover 
of these managers is a negative factor in achieving continuity 
and smooth transition for these young heroes. This indicates to 
me that more work needs to be done to improve execution of the 
Warrior Transition Unit concept.
    Dr. Stockton, you have an impressive record of academic 
scholarship in homeland defense and homeland security policy, 
including leadership positions at the Naval Postgraduate School 
and most recently at Stanford University. I have to say that 
your qualifications for the equally important Americas' 
Security Affairs portion of the portfolio you've been nominated 
for appears to be lacking. Your responses to the committee's 
advance policy questions relating to Haiti, Cuba, Venezuela, 
Bolivia, Panama, U.S. Southern Command, and others were 
completely unresponsive and raise serious questions which must 
be clarified before any action should be taken on your 
nomination. I understand the committee staff intends to follow 
up with you in this regard.
    Thank you, Mr. Chairman, and I welcome our nominees and our 
colleagues.
    Chairman Levin. Thank you so much, Senator McCain.
    First we'll call on an old friend, Senator Lugar, to make 
his introduction. Then we'll call on Senator Durbin to make 
your introduction. Representative Sam Farr, you would then 
become next. Senator McCain has already introduced Mr. 
Blanchard. Then once each of you make your introductions, you 
can either stay or leave as you need to. We know you all have 
heavy schedules.
    Senator Lugar, it's always great to see you here. I made 
reference to Nunn-Lugar in my introduction and you're well 
known for many wonderful advances, but that surely is one of 
them; and we now call on you.

STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM THE STATE 
                           OF INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, Senator 
McCain. It's a real privilege to be here to introduce my friend 
Andy Weber.
    President Obama has nominated Andy to be Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs. I've worked closely with Andy for more than a 
decade. I believe the President could not have made a better 
choice. Andy Weber has played an instrumental role in the 
success of the Nunn-Lugar program. He's been at the forefront 
of our Government's efforts to meet the threat posed by weapons 
of mass destruction. I've seen Andy's decisionmaking, energy, 
personal diplomacy firsthand during many Nunn-Lugar inspection 
visits to the former Soviet Union.
    He has served his country with honor and courage, most 
recently as a long-time adviser on the Nunn-Lugar program in 
the Office of the Secretary of Defense, and I am confident he 
will continue to do so in his new position.
    Mr. Chairman, because of Andy's work we live in a safer 
world. He has led the program's efforts to address the threat 
posed by biological weapons. Under his leadership, the program 
has secured toxic pathogens that could have fallen into 
terrorist hands, and because of his efforts pathogen strain 
samples that might some day lead to cures and treatments are 
being studied in United States laboratories and public health 
professionals are developing important assessment tools to 
understand and to prevent the outbreak of deadly diseases that 
directly threaten the well-being and stability of the world.
    In addition to securing biological weapons, Andy has been 
the point man for our nonproliferation operations in a number 
of countries. He led the American team that traveled to Moldova 
to remove 21 MIG-29 fighter aircraft and personally oversaw the 
transportation of the planes back to the United States. The 
jets were capable of launching nuclear weapons and would have 
been extremely dangerous had they been transferred to rogue 
states.
    Andy also led the United States efforts in a once-
classified operation known as Project Sapphire. In the winter 
of 1994, the Kazakh Government discovered nearly 600 kilograms 
of highly enriched uranium, enough to make several nuclear 
weapons. The material was highly vulnerable. We know that a 
number of governments and organizations had a strong interest 
in acquiring it. Andy's efforts ensured that these materials 
were transported to the United States for safekeeping.
    He also played a crucial role in razing the largest anthrax 
production facility in the world. The plant, known as 
Stepnogorsk, was built by the Soviet Union during the Cold War. 
Each piece of equipment involved in the production and 
weaponization of biological weapons was destroyed and the 
structure was bulldozed to the ground.
    Andy's operational successes are matched by his diplomatic 
skills. With an innovative negotiating style all his own, he 
has built relationships that led to unprecedented 
nonproliferation breakthroughs. With little fanfare, he has 
served in remote locations negotiating, monitoring, and 
implementing the elimination of the most deadly substances ever 
created.
    The position for which Andy has been nominated will be 
different than the role he played in the Nunn-Lugar program. 
But I am confident that in a few years we will be reflecting on 
another long list of his accomplishments. I am proud to offer 
my strongest endorsement of Andy Weber's nomination. I urge the 
committee to act favorably. I urge my colleagues in the Senate 
to confirm him promptly. I thank very much the committee for 
inviting me to appear today.
    Chairman Levin. Thank you so much, Senator Lugar. We're 
delighted to hear from you. We know that you have another 
commitment, as do our other introducers.
    Now a great favorite of all of ours, Senator Dick Durbin.

 STATEMENT OF HON. RICHARD DURBIN, U.S. SENATOR FROM THE STATE 
                          OF ILLINOIS

    Senator Durbin. Thanks a lot, Senator Levin, chairman of 
the committee, and Senator McCain. Thank you very much for your 
hospitality today.
    It's my honor to introduce Tom Lamont to support his 
confirmation as Assistant Secretary of the Army for Manpower 
and Reserve Affairs. President Obama made the right choice when 
he nominated Tom for this position. Tom is a dedicated public 
servant who's spent a lifetime dedicating himself to public 
life. He is also a good friend and neighbor in Springfield. I 
know him and his family very well.
    Unfortunately, his wife Bridget and family could not join 
him today as Bridget's father passed away Saturday evening. He 
was 90 years old. That's why Tom is here by himself, but they 
are with him in spirit and totally supportive of this 
nomination. I know that Bridget is proud of Tom's service, 25 
years of experience as a Judge Advocate General (JAG) with the 
Illinois Army National Guard. He was the State staff JAG before 
retiring at the rank of colonel in 2007.
    Tom's public service goes beyond the Guard. In 1990 he was 
elected to the Board of Trustees of the University of Illinois. 
He also served in the highest capacities with the Office of 
State's Attorney as appellate prosecutor, civil litigation in 
the Office of the Illinois Attorney General, and the Illinois 
Board of Higher Education. He has a private law practice in 
Springfield and most recently has served as Special Counsel for 
the University of Illinois.
    If confirmed, this broad array of service and experience 
will serve him well. The Army needs leaders like Tom right now. 
The Army has soldiers deployed around the world. The wars in 
Iraq and Afghanistan create tremendous strain on the soldiers 
and their families, as we saw with this morning's tragic 
headline.
    Of the 178,000 troops serving today in Iraq and 
Afghanistan, roughly 138,600 are Army soldiers. Of those, 
88,000 to 90,000 are members of the Guard and Reserve. That 
includes, incidentally, 2,700 members of the Illinois Army 
National Guard's 33rd Infantry Brigade Combat Team. Many of 
these soldiers have served extended deployments and often 
multiple deployments.
    As the Assistant Secretary for Manpower and Reserve 
Affairs, Tom will supervise the essential manpower and 
personnel issues facing the Army, no small task, but one that 
he is certainly up to. He will be responsible for championing 
the Army's Reserve components. With his years of experience in 
the Illinois Guard, he has a strong understanding of the needs 
of the Reserves as well. He will make sure the Army Reserve has 
the resources and capabilities it needs to be an operational 
force.
    I strongly support his nomination. I urge the committee to 
favorably report this nomination for full consideration by the 
Senate.
    Thank you, Mr. Chairman, Senator McCain.
    Chairman Levin. Thank you so much, Senator Durbin.
    Now we will call on Congressman Farr. We're delighted that 
you could join us today, Sam.

STATEMENT OF HON. SAM FARR, U.S. REPRESENTATIVE FROM THE STATE 
                         OF CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman and Ranking 
Member McCain.
    I'm very pleased to introduce to you Paul Stockton, who I 
have known for more than a decade as a friend and a mentor. 
Paul and I became acquainted when he became the Director for 
the Center of Civil-Military Affairs at the Naval Postgraduate 
School in Monterey, CA. From my background as a former Peace 
Corps volunteer in Colombia, I was interested in how the United 
States could assist foreign nations in resolving civil-military 
affairs and Paul was the leading expert in this area.
    Paul was interested in and knowledgeable about Latin 
American affairs and developed the DOD programs in Colombia 
that helped build the effective security partnerships with 
important democracies, including assisting the Colombian Armed 
Forces with programs to reinforce the rule of law and respect 
for human rights. That program involved officers from 
throughout Central America, El Salvador, and Latin America.
    His expertise in international affairs led him to establish 
the School of International Graduate Studies, where he served 
as the acting dean until he was appointed provost of the Naval 
Postgraduate school in 2001. The tragedy of September 11 drove 
Dr. Stockton to create the Center for Homeland Defense and 
Security at the Naval Postgraduate School. Dr. Stockton 
developed the Nation's premier master's degree curriculum that 
educates our Nation's first responders in critical homeland 
security issues.
    Again, recognizing the need to integrate DOD and the 
Department of Homeland Security, Paul brought the DOD officers 
together with their civilian counterparts at the local, State, 
and Federal level. As the first Director of the Nation's only 
Department of Homeland Security-supported master's degree 
program, at the Center for Homeland Defense and Security, Dr. 
Stockton developed education modules to support the homeland 
security efforts of governors and mayors all across the 
country.
    Dr. Paul Stockton is among the Nation's top experts in 
homeland security issues and will lead the Office of the 
Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs with honor and distinction.
    In closing, Senators, I'd like to mention that Paul's 
beautiful wife Missy and his two adorable sons William and 
Henry cannot be here today, but his in-laws are present and I 
would like to recognize Bill and Carol Engler, who are sitting 
right behind me.
    Thank you for allowing me this time to pay tribute to my 
good friend and mentor Dr. Paul Stockton.
    Chairman Levin. Thank you so much, Congressman. Say hello 
to my brother, would you? I haven't seen him for a few days.
    We'll now turn to our nominees. We're going to ask you all 
first our standard questions. First, have you adhered to 
applicable laws and regulations governing conflicts of 
interest?
    Mr. Weber. Yes.
    Dr. Stockton. Yes.
    Mr. Lamont. Yes.
    Mr. Blanchard. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Weber. No.
    Dr. Stockton. No.
    Mr. Lamont. No.
    Mr. Blanchard. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record, in hearings?
    Mr. Weber. Yes.
    Dr. Stockton. Yes.
    Mr. Lamont. Yes.
    Mr. Blanchard. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Weber. Yes.
    Dr. Stockton. Yes.
    Mr. Lamont. Yes.
    Mr. Blanchard. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Weber. Yes.
    Dr. Stockton. Yes.
    Mr. Lamont. Yes.
    Mr. Blanchard. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Weber. Yes.
    Dr. Stockton. Yes.
    Mr. Lamont. Yes.
    Mr. Blanchard. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Weber. Yes.
    Dr. Stockton. Yes.
    Mr. Lamont. Yes.
    Mr. Blanchard. Yes.
    Chairman Levin. Thank you.
    Now, as I call upon each of you, you should feel free to 
introduce members of your families if they're with you or 
friends who are with you. We'll start with Mr. Weber, and we'll 
go from Mr. Weber, to Dr. Stockton, Mr. Lamont, and then Mr. 
Blanchard. Mr. Weber, do you have an opening statement?

 STATEMENT OF ANDREW C. WEBER, NOMINEE TO BE ASSISTANT TO THE 
 SECRETARY OF DEFENSE FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL 
                        DEFENSE PROGRAMS

    Mr. Weber. Thank you, Mr. Chairman. Yes, I do. Chairman 
Levin, Senator McCain: It is an honor and a privilege to appear 
before you today as the nominee for Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense 
Programs. I am grateful to President Obama and Secretary Gates 
for their confidence in nominating me to this important 
position.
    I would like to thank Senator Lugar for the generous 
introduction and note that he has been an inspiration to me and 
countless other people around the world, and that his vision 
and leadership of the Nunn-Lugar programs have made us all 
safer.
    I especially want to thank my loving family. Let me 
introduce my wife Julie, my daughter Eleanor Jane, and my 
mother Pat. I would also like to thank my father, James Weber, 
an Army Air Corps veteran, resting in peace across the Potomac 
River in Arlington National Cemetery. Finally, I would like to 
thank my friends and colleagues who are here today to support 
me.
    By nominating a career public servant to this important 
position, President Obama has demonstrated his faith in the 
professionals, civilian and military, whose greatest calling is 
to serve the American people. I have had the privilege of 
serving under every President since Ronald Reagan these last 24 
years. I am truly humbled by the opportunity President Obama 
has given me, and if confirmed I pledge to work closely with 
you and this committee to strengthen the Nation's security 
against weapons of mass destruction.
    Mr. Chairman, Senator McCain, I thank you for your 
consideration and welcome any questions you may have.
    Chairman Levin. Thank you, Mr. Weber.
    Next, Dr. Stockton.

  STATEMENT OF DR. PAUL N. STOCKTON, NOMINEE TO BE ASSISTANT 
    SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND AMERICAS' 
                        SECURITY AFFAIRS

    Dr. Stockton. Thank you, Mr. Chairman and Senator McCain, 
for the opportunity to appear before you this morning. I'm 
honored that the President has nominated me to be the Assistant 
Secretary of Defense for Homeland Defense and Americas' 
Security Affairs. This day would not have been possible without 
the love and support of my wife Missy, who had to stay back in 
California with my two wonderful boys, William and Henry, and 
with my parents, to whom I owe so much.
    I want to acknowledge two special debts of gratitude. The 
first is to Senator Daniel Patrick Moynihan, who gave me my 
real education in government. Second, I want to acknowledge 
Lacy Suiter, who helped me understand the importance of 
building effective partnerships between DOD and local, State, 
and Federal civil authorities.
    Should I be confirmed by the Senate, I would welcome the 
opportunity to strengthen those partnerships in support of the 
Under Secretary of Defense for Policy, the Deputy Secretary, 
and the Secretary of Defense. I would also do everything 
possible to strengthen the homeland defense of the United 
States and to build security in the western hemisphere with our 
regional partners.
    Finally, if confirmed by the Senate I would commit myself 
to respecting the vital role played by this committee and the 
Senate as a whole, and would welcome any questions you might 
have for me this morning.
    Chairman Levin. Thank you very much, Dr. Stockton.
    Mr. Lamont.

    STATEMENT OF THOMAS R. LAMONT, NOMINEE TO BE ASSISTANT 
     SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Lamont. Thank you, Mr. Chairman. Chairman Levin, 
Senator McCain: I am deeply honored and privileged to appear 
before this committee as the President's nominee for Assistant 
Secretary of the Army for Manpower and Reserve Affairs. I'd 
like to thank the President and the Secretary of Defense for 
the trust and confidence shown me by nominating me to serve in 
this position. I'd like to also thank Senator Durbin for 
introducing me here today and for his support and guidance 
through this process.
    If I am confirmed, as a former National Guardsman I look 
forward to the opportunity to serve my country again at a time 
when our national security environment is as challenging as it 
has been at any other time in our Nation's history. If 
confirmed, it would be my distinct honor to help them 
accomplish the complex and challenging missions our Nation asks 
the Army to perform.
    I'd like also to thank my family for their support and 
encouragement to undertake this new challenge. Unfortunately, 
my wife of 37 years cannot be here today. Her father passed 
away this past weekend and the funeral is today. Our son 
Michael is the oldest grandchild and he is serving as a 
pallbearer. His duty is with his mother. While I would have 
liked to have joined the family today, we decided family trials 
such as this can and do arise at any time for our soldiers and 
they persevere and soldier on. They should not expect any less 
from me.
    Mr. Chairman, I look forward to any questions you and other 
members of this committee may have. Thank you very much.
    Chairman Levin. Thank you, Mr. Lamont. If you would extend 
our condolences to your family. Their separation from you on a 
day like this I'm afraid is standard for families.
    Mr. Lamont. Absolutely.
    Chairman Levin. They come through a lot of trials 
supporting their member who is in public service, and here we 
have a very dramatic example on the very day that you have your 
confirmation hearing. Thank them for their understanding and 
tell them that we miss them. We understand why they're not here 
and we very much appreciate their support.
    Mr. Lamont. Thank you for your remarks.
    Chairman Levin. Thank you.
    Mr. Blanchard.

   STATEMENT OF CHARLES A. BLANCHARD, NOMINEE TO BE GENERAL 
           COUNSEL OF THE DEPARTMENT OF THE AIR FORCE

    Mr. Blanchard. Yes, Mr. Chairman and Senator McCain. It's a 
great honor to be before this committee as a nominee for 
General Counsel of the Air Force. I especially want to thank 
Senator John McCain for his kind introduction. This is twice 
he's done this for me and I deeply appreciate it.
    I would also like to thank President Obama and Secretaries 
Gates and Donley for the trust they have placed in me. Finally, 
I want to thank the staff and the members of this committee for 
the great courtesy that they've shown during this process. I 
realize this is a very busy time and I appreciate the hard work 
it took to do this hearing so quickly.
    My wife Allison wanted to be here today, but obligations 
have required her to remain in Arizona. I'm very proud of my 
wife. In addition to being the best possible mother to our very 
active 4-year-old boy, she also has a long history of public 
service, including many years in the Pentagon.
    I am deeply humbled and honored by this nomination. The 
most fulfilling job I've had in my career to date was as 
General Counsel of the Army and I'm excited by the prospect, if 
confirmed, of serving as General Counsel of the Air Force.
    The challenges facing the Department of the Air Force are 
many and I look forward to helping Secretary Donley and the 
rest of the Air Force team as they grapple with these 
challenges. But most of all, I'm especially happy to be 
nominated for a position that will allow me to improve the 
lives of the dedicated Air Force personnel who work to protect 
America and, when called upon, put themselves in harm's way for 
our country.
    I am committed to a close and productive working 
relationship and partnership with the Air Force JAG and the 
other military lawyers in the department. I am proud that I had 
a great relationship with the Army JAG leadership during my 
tenure as General Counsel of the Army and General Walt Huffman 
was not merely a great colleague, he became a close friend. I 
am firmly convinced that the leadership of the Air Force is 
best served when the civilian and military lawyers work 
together as a team to offer the best possible legal advice to 
our mutual clients.
    Should I be confirmed, I look forward to working with this 
committee in addressing any legal issues that may arise during 
my tenure, and I appreciate the opportunity to appear today and 
would be happy to answer any questions.
    Chairman Levin. Thank you so much.
    Let's try an 8-minute round for our first round of 
questions.
    Mr. Lamont, family support programs are more important than 
ever in light of continued deployments and the related stress, 
both on members of the armed services, as probably was the 
cause of yesterday's tragedy, but also on their families. Can 
you give us your view of the importance of family support 
programs? Where would you put greater focus?
    Mr. Lamont. Thank you, Mr. Chairman. Obviously, the family 
support program is extremely important. When a soldier deploys, 
his family goes to war in many respects themselves. They are 
confronted with many of the same concerns, housing and 
education, financial issues, of our society, but yet it's 
exacerbated with the loss of a loved one.
    If I am confirmed, I think it behooves us to do everything 
in our power to ensure the strength of our family support 
program, because if we are to sustain the volunteer Army we 
need to sustain that family support group.
    Chairman Levin. We've seen a significant increase in 
suicides. Can you give us your thoughts on prevention?
    Mr. Lamont. I'm aware that it seems to be a significant 
increase in suicides. This is a terrible tragedy. Again, it 
somewhat mirrors society, and again exacerbated by the long 
deployments and the lack of a family support group. We think 
much more needs to be done in recognizing behavioral and risk 
factors, and the Army I'm aware has initiated a great deal of 
new training regimens just in order to try to recognize those 
risk factors among our troubled soldiers. It's something that 
we must have constant vigilance on.
    Chairman Levin. Mr. Weber, you've spent many years working 
in the Cooperative Threat Reduction (CTR) program, particularly 
in the implementation of the biological threat reduction 
programs. The National Academy of Science recently released a 
report which set forth recommendations on future opportunities 
for the CTR program, particularly within the area of biological 
threat reduction initiatives. Can you give us your view of the 
report and the recommendations and which of those 
recommendations would you follow or try to follow for expansion 
of the CTR program?
    Mr. Weber. Mr. Chairman, my friends Ron Lehman and Dave 
Franz did an excellent job co-chairing that National Academy 
report. As required by law, the Secretary will soon be 
reporting to you with his assessment of that report. But I have 
studied it closely. It's an excellent report and I personally 
endorse all of the recommendations.
    The most important one is that we take the lessons learned 
from our threat reduction programs in the former Soviet Union 
and expand them geographically to other areas of the world. The 
Secretary is working on a determination to allow us to use the 
new authorities given by this committee in Pakistan and 
Afghanistan, and the initial focus of that will be on 
biological threat reduction programs. Later perhaps we could 
expand these programs into other parts of the world, like 
Southeast Asia and Africa.
    Another recommendation which I fully endorse is the need 
for less bureaucracy and more agility and flexibility as we 
implement these programs. If confirmed for this position, I 
will oversee the Defense Threat Reduction Agency and will work 
with that agency on improving the flexibility. Secretary Gates 
has said that a 75 percent solution in months is better than a 
100 percent solution in years, and I think that will be sort of 
our guiding mandate as we move forward with these programs.
    Finally, the report criticized the Government for not 
having more high-level attention on these programs. The fact 
that I am being considered for this senior leadership position 
in DOD will position me personally to give these programs the 
attention that you and Senator Lugar have given them and 
Senator McCain by traveling to the countries, meeting with our 
partners, and visiting some of these weapons of mass 
destruction sites where the day-to-day work goes on.
    Thank you.
    Chairman Levin. Thank you.
    Dr. Stockton, the Commission on National Guard and Reserves 
made a number of findings and recommendations in their final 
report on increasing the capabilities and responsibilities of 
the National Guard and Reserves in the homeland. The commission 
concluded that: ``DOD must improve its capabilities and 
readiness to play a primary role in the response to major 
catastrophes that incapacitate civilian government over a wide 
geographic area.'' This is a responsibility, in their words, 
that is ``equal in priority to its combat responsibilities.''
    In response to a request from this committee, Admiral 
Mullen, the Chairman of the Joint Chiefs, wrote in April 2008 
that: ``I have some concerns with the Commission's ideas on 
enhancing the Defense Department's role in the homeland. While 
Reserve component civil support requirements are important, 
they should not be of equal importance to DOD's combat 
responsibilities.''
    Can you give us your view on that issue? Do you agree with 
Admiral Mullen or do you agree with the finding of the 
Commission on the National Guard and Reserves?
    Dr. Stockton. Thank you for the question, Mr. Chairman. I 
agree with Admiral Mullen. I believe that the current national 
defense strategy specifies that the core mission of DOD is the 
defense of U.S. homeland from attack and the securing of U.S. 
interests abroad. The civil support mission and support of 
civil authorities is absolutely vital and if confirmed I would 
work to strengthen U.S. capacity for that. But the core 
missions are as stated in the national defense strategy.
    Chairman Levin. Dr. Stockton, State Governors have 
authority to activate their National Guard in State status to 
respond to major disasters and emergencies. However, much of 
the equipment and many of the specialties needed to respond to 
these disasters and emergencies are in the Reserves of the 
Armed Forces and the President is precluded from mobilizing 
these Federal forces for that purpose.
    Governors have opposed DOD's efforts to authorize the 
President to mobilize the Reserves to respond to insurrections 
and manmade disasters, accidents, or catastrophes because the 
Reserves would not be under State command and control.
    My question is whether you believe that Congress should 
authorize the President to order the Army Reserve, Navy 
Reserve, Air Force Reserve, Marine Corps Reserve, and Coast 
Guard Reserve to Active Duty to respond to an insurrection or a 
serious natural or manmade disaster, accident, or catastrophe 
even though they would not be under the Governors' command and 
control?
    Dr. Stockton. Thank you, Senator. My view is that the 
current statutory authorities of the President are adequate and 
that the Insurrection Act as in law today spells out the very 
limited circumstances under which these kinds of uses of 
Federal forces, National Guard forces under Federal control, 
might be used. I do not see at this time the need for further 
legislation on that subject.
    Chairman Levin. Thank you all.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Weber, do you believe that any ratification of the 
Comprehensive Test Ban Treaty (CTBT) should be preceded by 
plans for a new redesign and more reliable warhead? Secretary 
Gates recently stated that without future testing it will 
become impossible to keep extending the life of our nuclear 
arsenal.
    Mr. Weber. Senator McCain, I believe that the President's 
desire to have ratification of the CTBT needs to be backed up 
by increased attention of the Nuclear Weapons Council of the 
Department of Defense and the Department of Energy on ensuring 
that we have a safe, secure, reliable, and credible deterrent. 
We have an aging stockpile and over time it becomes more 
difficult to certify the reliability of those weapons without 
testing. I believe one of the safeguards that we need to have 
is a supreme national interest clause that would allow testing 
if it were in the supreme national interest, and we also need 
to maintain our nuclear weapons testing readiness if one of 
those situations arose.
    But if I am confirmed, making sure that the Department of 
Energy and DOD dedicate the resources as outlined by the recent 
Perry-Schlesinger Commission on the U.S. Strategic Posture, 
that will help us continue into the future to be able to 
certify the safety, security, reliability, and most 
importantly, credibility of our nuclear deterrent.
    Thank you.
    Senator McCain. Dr. Stockton, recently the Senate Homeland 
Security and Governmental Affairs Committee had a hearing on 
the increasing violence on the border with Mexico. Do you think 
that the United States is doing enough to assist the Calderon 
Government in combating these cartels?
    Dr. Stockton. Thank you, Senator McCain, for the question. 
I believe that under the Merida Initiative and other 
opportunities for the United States to be in support of 
President Calderon's Government, that we have some ongoing 
programs of support that are very valuable, and should I be 
confirmed in this position I would welcome the chance to hear 
your insights and those of your staff as to how those programs 
could be further strengthened.
    Senator McCain. Let me suggest that you take a trip down to 
the U.S.-Mexican border and get an assessment. The level of 
violence is dramatically increasing, the atrocities that are 
being committed between the cartels and the government to an 
unprecedented level.
    I don't know if you're aware, but the Governors of 
California, New Mexico, Arizona, and Texas have requested the 
National Guard to be deployed on the border because of their 
concerns of the spillover of violence into our country. Do you 
think that the deployment of National Guard along the southern 
border would be helpful?
    Dr. Stockton. Sir, any such deployment would be in support 
of the local, State, and Federal law enforcement agencies that 
have primary responsibility for dealing with violence spilling 
over from the activities of the drug cartels. Should I be 
confirmed by the Senate for this position, I again would look 
forward to opportunities for DOD to play that support role 
consistent with law, as appropriate and as approved by the 
President of the United States.
    Senator McCain. General Michael Hayden, former Director of 
Central Intelligence, recently said: ``Escalating violence 
along the U.S.-Mexico border will pose the second greatest 
threat to U.S. security this year, second only to al Qaeda.'' 
If General Hayden is correct--and from my own experience I 
believe he is--I would suggest that you pay attention to that 
issue and make a recommendation to the President accordingly, 
because right now the governors, who have to deal with this 
issue every single day along the border, are strongly in favor 
of deploying our Guard troops, at least until we have 
sufficient security along the border.
    Mr. Lamont, I think it's important to note that the 
retention and recruiting in the Army has increased rather 
dramatically. We know that part of that is the economy, part of 
it is willingness to serve and a desire to serve, part of it is 
the fact that we've achieved success in Iraq, and it has had a 
very significant impact on morale.
    I was out at Walter Reed Army Medical Center yesterday and 
I had the opportunity of having lunch with some of our wounded 
warriors. They overall are satisfied with a lot of the 
treatment they're receiving and the improvements that have been 
made since the scandal out there. But they also think that 
there are some needed improvements, particularly in the 
transition area, from discharge from hospital care to civilian 
life.
    I would suggest that maybe a trip out to Walter Reed and 
Bethesda Naval Medical Center, where there are some Army 
personnel as well, and to Brook Army Hospital would be one of 
your top priorities so that you can get a firsthand 
understanding of the challenges that these brave warriors are 
facing. You will be astounded by the morale and the 
rehabilitation that's taking place, but there are still areas 
that need to be addressed if we're going to provide them with 
the care and attention that they have obviously earned.
    I hope you'll take the time to go to Walter Reed, Bethesda, 
Brook, and other facilities that are providing care for our 
wounded warriors.
    Mr. Lamont. Absolutely.
    Senator McCain. Mr. Blanchard, there's been a couple of 
scandals in the Air Force. One of them had to do with Boeing. 
Another one had to do with the former Chief of Staff of the Air 
Force. I urge you to make sure that the performance of all, 
both civilian and uniformed, in the United States Air Force 
comports themselves with the highest standards of public 
service that we expect of them. I would imagine that your 
previous experience will qualify you to hit the ground running 
on this issue.
    Dr. Stockton, again, our hemisphere is important. It's an 
important part of your portfolio. We have individuals such as 
President Chavez in Venezuela, Nicaragua, Bolivia, and Ecuador, 
where we have significant challenges. I hope you'll clarify 
your answers to the committee and make sure that they are full 
and comprehensive.
    I congratulate you all and your families, and we look 
forward to an early confirmation so that you can get to work.
    Thank you, Mr. Chairman. I thank the witnesses and their 
families for their willingness to serve the country.
    Chairman Levin. Thank you, Senator McCain.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    To all of you, congratulations on being here at this point 
and I look forward to being one of those that vote for 
confirmation for you all. I think you're a great group of folks 
and President Obama has once again selected some good 
individuals, especially in the armed services area. Again, 
congratulations to the families that are here. I wish you all 
the best because I know their hours now will be longer than you 
had anticipated and what you were told. So be patient with 
them, but thank you for your support for them. It's very 
important when they have to do their duty late in the evenings. 
It's the family that makes the difference. So thank you all for 
doing that.
    I just have questions for two of you, and that could be 
good and bad; good for the two that don't have to answer 
questions, bad that you have to wait for the other two to 
finish. But one is for Dr. Stockton and a couple for Mr. 
Lamont.
    First, Dr. Stockton, in regards to Arctic policy, how do 
you see your role or how do you see long-term impacts with 
regards to Arctic policy on homeland security and defense in 
general as it continues to have more activity and will 
obviously in the future have a lot of activity, based on the 
climate change issues? Do you have any general comments you'd 
like to make on that or specifics, if you could?
    Dr. Stockton. Thank you for the question, Senator. There 
are a lot of priorities competing for funding and programmatic 
support across the Federal Government now. I think in this 
realm of homeland defense and homeland security there are also 
terrific opportunities for more effective collaboration between 
DOD and the civilian agencies, Federal, State, and local, that 
DOD can support.
    In addition to continuing to strengthen capacity to deal 
with the challenges that our Nation faces, I will look for 
efficiencies and ways to make sure that these agencies are a 
more effective mutual support as we go forward.
    Senator Begich. Do you see, as you look at the different 
agencies and working with them, as Congress and the White House 
are developing how we're going to deal with the issues up in 
the Arctic, how--let me put it another way. Do you think we 
have enough resources to deal with the future of the Arctic? Is 
that an area that, as again the Departments of Defense and 
Homeland Security work together on, which is probably very 
critical, do you think we have enough resources, or do you 
think that's an area that we need more engagement?
    Dr. Stockton. I think we need more engagement, sir. The 
position for which I have been nominated is responsible for 
western hemisphere affairs. There are new challenges emerging 
due to climate change. In the polar region, new passages are 
opening up for ship traffic. New opportunities for exploitation 
of minerals, oil for example, in the seabed; and unresolved 
issues now that have been raised by this.
    Should I be confirmed by the Senate, I would pay special 
attention to these emerging western hemisphere security issues 
that would fall under my policy purview.
    Senator Begich. Very good. Thank you very much for that. As 
a Senator from Alaska, that's obviously an area of concern. We 
are an Arctic Nation because of the State of Alaska. I truly 
believe we are totally underresourced up there for what is 
going to be necessary, not only today but into the future. I 
appreciate your comments in that regard.
    Dr. Stockton. Thank you, sir.
    Senator Begich. Thank you very much.
    Mr. Lamont, I have a couple questions and I do want to 
follow up on the chairman's questions in regards to family 
support, and something that I know--in Alaska we have lots of 
folks that have been deployed as well as rotated back. As a 
former mayor of Anchorage, we've done a lot of work with family 
support and the necessity of it. I want to echo that I think 
families and spouses are under great stress at this time based 
on the deployments and the amount of deployments.
    I want to echo the question and have you expand on it, if 
you could. Do you think we have enough resources focused on 
family support, not only here in country, but also on service, 
outside of the country, in the sense of folks that have been 
deployed in making sure that the families are well taken care 
of? Again, not just the large picture, but at the battalion and 
company level. Can you give me some comment on that?
    Mr. Lamont. I share your concern with that issue. It's 
absolutely vital that we have an extremely strong family 
support group. As I mentioned to Chairman Levin, soldiers don't 
deploy by themselves. All families share in the sacrifices that 
their loved ones are going through.
    I am not totally familiar with all the resources available 
at this present time to suggest that we need more or less. 
Clearly, I think we're always open to doing whatever we can to 
support our families.
    I will mention a new program entitled the Army Family 
Covenant, in which there is great stress and great emphasis on 
how we can serve the families, no matter where they're 
situated. Yes, we do have our share of thorns.
    Senator Begich. Thank you very much. Actually, I was one of 
the first mayors when I served as mayor to sign the covenant 
with the Army, because it was an important message and mayors 
have capacity, especially because they're so local in the sense 
of connection to the bases, to do whatever they can to serve. 
We had our superintendent, myself, and others sign that. So I 
agree with you.
    Mr. Lamont. We need that cooperative effort.
    Senator Begich. That's a great program.
    The other issue is also in regards to families: Do you 
think within the leadership at your level and other levels that 
people have made the psychological adjustment that the 
families--or the Army--the military of today--let me broaden 
it--the military of today versus 30, 40 years ago--it used to 
be 75 percent, basically single men enlisted, and now it is 75 
percent families instead of single individuals.
    Do you think that the folks have adjusted and 
psychologically changed in the sense of how they deal with the 
operations of the military, and the Army specifically? Because 
it has changed dramatically in the last 40-plus years, from 75 
percent single males to 75 percent family, give or take a 
percent there. Do you think that's occurred or do you think 
there's a lot more work or some work to be done?
    Mr. Lamont. It certainly is a changing environment, 
although I'm led to believe that the Army has absorbed and 
reprogrammed to the extent they believe, to move to that 
psychology of a much larger number of female soldiers now, with 
families. In fact, I'm told we have over 700,000 children in 
our Army families right now. I do think there's a lot to be 
done in that regard. Have we done enough?
    Senator Begich. Hard to say.
    Mr. Lamont. I don't know that.
    Senator Begich. That would be an area to look at, because I 
know when you shift like this you have to get the leadership to 
also recognize the change that's occurred. It's a tough change 
because some have been in the system so long, they've been 
there a long time, but some of the new challenges of families 
are pretty dramatic. But I appreciate that.
    One other question, I think I'm getting close on time. Let 
me ask you about some of the recruitment and what's been 
happening in somewhat of a positive way, because the economy 
has been flat and in some cases, in some communities, very 
dramatically hit in the sense of unemployment and so forth.
    Some of the recent reports that I have seen, at least in 
the Army, they have curtailed the waiver policies, reduced 
recruitment bonuses, and been a lot more selective in 
admittance, because they have a lot more choices now, which is 
a good thing in a lot of ways. But on the flip side, in this 
economy that's flat also the National Guard has had to cut 
personnel and recruitment budgets have also been reduced. So 
it's going to have an impact in the economy.
    I guess the question is, do you think we have the right 
level of strength cap, the right levels here, and this is the 
right move to start reducing in some areas at this time, where 
we're in somewhat of a transition?
    Mr. Lamont. I think the end strength issues are very 
important. I share with you the concern of how we reach that 
end strength. Our recruiting and retention successes have been 
noted. I also note, frankly in today's paper, that there is a 
potential budget recommendation of a reduction in recruitment 
budget.
    Senator Begich. Yes.
    Mr. Lamont. I would suggest that was not done without full 
and deliberate consultation with our senior defense leaders, 
and I look forward to realizing what those discussions were.
    Senator Begich. Very good. I appreciate it. My time is up 
and I do thank you for your answers to the questions.
    Again, to all four of you, thank you for your willingness 
to serve your country in this manner. Thank you very much.
    Chairman Levin. Thank you, Senator Begich.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, I apologize for having stepped out. I'm on the 
Senate Foreign Relations Committee as well and we have 
Ambassador Holbrooke two floors away. So it's a typical mil 
drill up here in the Senate.
    Chairman Levin. We cannot hear him.
    Senator Webb. Excuse me?
    Chairman Levin. Usually we can hear him two floors away. 
[Laughter.]
    Senator Webb. You'll hear about him, I'm sure, in the next 
hour or 2.
    Mr. Lamont, I wanted to take some time today and talk to 
you about my concerns with respect to the approach that's been 
taken on manpower issues in recent years. A good place to start 
and a follow-on to what Senator Begich was saying, I grew up in 
the military. I grew up in a military family. I know that part 
of it very well, the stress on the spouse and on the kids.
    At one point there was a 3\1/2\ year period where my father 
was either deployed or assigned to bases where there wasn't 
family housing. When you go through the numbers that you and 
Senator Begich were trading about the transition of the 
percentage of married personnel, it really occurred principally 
in the 1980s, when I was Assistant Secretary of Defense 
responsible for the Guard and Reserve programs.
    We saw huge jumps in the percentage of people who were 
married. In fact, we did a through-line study. I had asked the 
question, what percentage of sergeants, E-5, in the Army were 
married in 1971 as compared to 1986, and I think it was 14 
percent up to 73 percent. We did a lot of funding during those 
periods, put a lot of quality of life programs on line.
    As someone who had grown up in a different era, it was just 
remarkable to see the way that DOD stepped forward, and it has 
continued. I don't think that really is the main impediment 
today. There are two issues and I want to talk to you about 
both of them. One is the deployment obligations right now; and 
the second, it's a little bit of a different question, but I 
have great concern about this and I've been raising it ever 
since I've been here in the Senate, and I want to lay this down 
because I hope you will do something about it in your own 
position. When people from the Pentagon come over here to this 
committee and start talking about our Active Duty people, they 
tend to forget that a great percentage of them are citizen-
soldiers. We tend to talk about, oh, you enlist the soldier, 
you reenlist the family, retain the family.
    But it took me a year to get this data when I was pushing 
the GI Bill, which I wrote and introduced my first day in 
office, that 75 percent of the soldiers in the Army leave the 
military on or before the end of their first enlistment and 70 
percent of United States marines do the same thing. They leave 
on or before the end of their first enlistment.
    That is healthy for the country. We are a citizen soldiery. 
But at the same time, I'm not seeing from the leadership in the 
military today that same tone, at least over here in these 
hearings, of stewardship, a lifetime of stewardship toward the 
people who are not career people. We do very well in terms of 
identifying the needs and the requirements of the career force. 
I would urge you to, whenever you're looking at any of these 
issues, to consider the long-term impacts of service in this 
type of environment.
    That's why I introduced the GI Bill. There are so many 
people who were leaving the military with the Montgomery GI 
Bill that couldn't even get into basic community college 
programs, when they had carried the load that very few other 
people in this country have been carrying since September 11.
    It's also, by the way, why I introduced the dwell time 
amendment twice in 2007, basically saying, however long you've 
been gone, you deserve that much time back at home before you 
have to deploy again.
    I will say here that--I'm not saying anything that I 
haven't said directly to General Casey--I was stunned when 
General Casey called me 2 years ago and said that the Army was 
going to 15-month deployments with only 12 months at home. The 
historical ratio on deployments has been 2 to 1. In the Navy, 
the Marine Corps, in the Army--in the Navy, when I was 
Secretary of the Navy, their deployment cycle was 6 months at 
sea, 12 months back at home. The deployment cycle was a year 
away in the Marine Corps, 2 years at home.
    We've gone down to .75 on the rotational cycle. I expressed 
my concerns very seriously more than 2 years ago about the 
emotional impact long-term on good people that could 
potentially come out of that. I'm not going to simply put the 
suicide issue on that.
    But having spent 4 years as a counsel on the House Veterans 
Affairs Committee right after the Vietnam War and working on 
these issues of post-traumatic stress and these sorts of 
things, it's very clear that a lot of the long-term emotional 
difficulties come from your best people, people who have given 
the most, and then need the right sort of stewardship, whether 
they stay in or not.
    My strong request to you is that in the policy discussions 
that you have in your position that you will keep both of those 
on the table, because they tend to fall off the table when 
we're talking about effective deployment strategies or 
maintaining the size of the force and those sorts of things.
    Mr. Lamont. Certainly I'll take your comments to heart.
    First let me applaud you for your efforts on the GI Bill. 
In my previous capacity, one of the first calls I got right 
after that took place was from our chancellor at the University 
of Illinois: How can we do this? How can we bring these people 
in? We want to encourage these people to take their ability to 
come in and accept that bill and work with it. We want them to 
use that bill. So we appreciate that.
    I am also very aware of the concerns with dwell time. We've 
seen it with our Reserve component. Secretary Gates has 
suggested a goal of 1 to 5 years. We're not there yet. I'm 
aware that the goal for our Active component, we are not able 
to accomplish yet either. These are serious concerns, and they 
go to some of the other questions that have been raised here 
today with our family support. They all tie in together. I will 
certainly take your comments to heart.
    Senator Webb. I would say, one of the real surprises for me 
as we move forward on the GI Bill and the dwell time amendment 
was that the previous administration opposed both of them. They 
said that it was going to affect retention or that there were 
political overtones in terms of dwell time. I'm here to tell 
you, we have a stewardship toward these people and if we, the 
civilian leadership, don't articulate this stewardship, in a 
lot of cases it's not going to happen.
    Another piece of that, by the way, when you're looking at 
issues like recruitment, there's two pieces on this GI Bill. 
One is the best way to make sure that individuals have the 
proper transition out of a combat environment is to have an 
affirmation of their service. They go back in that community 
and say: You know what, I just got a 4-year scholarship for 
serving my country, and there's only one way you can get it.
    The other piece of that is, in all the work that I've done 
over my lifetime, on the committee, I have 5 years in the 
Pentagon, the best recruiter is a former military person who 
has had a positive experience who's back in the community. 
Someone who has had a good experience and is back on the GI 
Bill is going to help you selfishly as well.
    I wish you the best. For all of you, our door is open and I 
hope that if you have any questions with respect to issues that 
you're working on or if you want to ever take the temperature 
of our office, we are there.
    Mr. Lamont. Thank you.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Mr. Lamont, I can assure you that Senator Webb's sentiments 
reflect the sentiments probably of every member of this 
committee.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I, too, want to congratulate all of you on your nominations 
to these very important positions. I want to welcome the family 
members here because you are definitely crucial to the fact 
that these individuals are going to be doing an outstanding 
job. I just want to thank you too for your commitment and in 
particular your support.
    My first question is for Mr. Weber. Transnational 
terrorism, I think, is among the most important threats that 
the United States must be capable of combating and deterring. 
Key to this is preventing the terrorists from obtaining the 
nuclear fissile materials, to include highly enriched uranium. 
My question is how do you propose that the United States can 
achieve this objective in not allowing this fissile material to 
get into the wrong hands?
    Mr. Weber. Senator, I agree with you. I have had personal 
experience in this area. In Kazakhstan I helped lead an 
operation to remove highly enriched uranium for safekeeping at 
the Y-12 plant in Tennessee.
    President Obama in his Prague speech has announced that 
locking up loose nuclear materials around the globe during his 
first administration will be a very high priority. He's asked 
Vice President Biden to help with that. I believe that DOD can 
play a role, working together with the Departments of State and 
Energy and other allies, in expediting this effort, because 
there is no greater threat to our national security than, God 
forbid, a group like al Qaeda getting its hands on an 
improvised nuclear weapon.
    Senator Hagan. Do you have any area that you would target 
first?
    Mr. Weber. DOD under the guidance of the National Security 
Council, together with the Department of Energy, is working on 
developing a campaign plan. There are a number of countries 
that have weapons-usable materials. Some are more cooperative 
than others. A lot of work has been done in this area over the 
past 10 or 15 years.
    We're left with some of the more difficult countries. It's 
going to take a lot of effort. But as I tell my colleagues, 
when Senators Nunn and Lugar created the Nunn-Lugar program 
they didn't tell anybody it was going to be easy. There's a lot 
of work to do, but we have a great team in the U.S. Government, 
and with presidential interest and support I think we will 
accomplish that objective in the next 4 years.
    Senator Hagan. Last week we had the chairman and the vice 
chairman of the Congressional Commission on the Strategic 
Posture of the United States testify before this committee. 
They suggested the importance of obtaining Russian cooperation 
on air and missile defense as a strategic message aimed to 
curtail the Iranian aspirations of developing nuclear weapons.
    Once again a question for you: How do you think such an 
objective can be obtained?
    Mr. Weber. It's clear that we need Russian cooperation in 
this global effort to lock down loose nuclear material. We also 
need more Russian support of the international objective of 
preventing Iran from acquiring a nuclear weapons capability and 
mating that to their current ballistic missile capability.
    I think President Obama has made this a personal priority. 
He's traveling this summer to Moscow to continue discussions 
with President Medvedev on this issue. But clearly we need more 
active Russian involvement in joining the international 
community to pressure the Government of Iran to forego its 
nuclear weapons and related enrichment programs.
    Senator Hagan. Dr. Stockton, key to protecting the United 
States is to ensure that critical energy infrastructure in 
strategic parts of the world, such as Saudi Arabia, are 
protected from asymmetric and unconventional attack, most 
notably from Iranian ballistic missile surrogates and proxies, 
as well as al Qaeda hubs in Yemen. These factors can affect the 
world's oil supply and affect our military capabilities to 
conduct operations in theater.
    What are your thoughts in countering this threat and what 
types of capabilities do you foresee that we need?
    Dr. Stockton. Thank you for the question, Senator. My 
office, the one for which I've been nominated, has some very 
important support functions. The Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict has primary 
responsibility for global counterterrorism, and some of that 
would involve protection of these very important energy 
facilities.
    But my organization, the one which I'm proposed to head up, 
also has very significant responsibilities. Let me talk a 
little bit about those responsibilities and then what I'd do to 
help strengthen them.
    First of all, this position is responsible for global anti-
terrorism. That is, the protection of U.S. bases and other 
facilities abroad from terrorist attacks so they can execute 
their missions. I would ensure that I did everything possible 
to strengthen the ability of our forward-deployed forces to 
accomplish their responsibilities in protecting these critical 
energy resources.
    Second, within the United States the position of Assistant 
Secretary of Defense for Homeland Defense and Americas' 
Security Affairs is responsible for defense-critical 
infrastructure protection. To the degree that DOD is dependent 
on sources of energy in order to execute its missions, both at 
home and abroad, again I would treat this responsibility very 
seriously, especially, as you note, the risk that our 
adversaries will attack us asymmetrically in ways in which we 
are not well prepared today as we should be.
    Senator Hagan. Thank you.
    Mr. Lamont, a question for you, and this follows up a 
little bit on what Senator Webb was talking about. The United 
States Army Reserve Command will transition to Fort Bragg by 
2011. I represent North Carolina and I've been to Fort Bragg a 
number of times recently, and they are doing an incredible job 
in a lot of the housing, in particular for the married 
families. I think that's also attributed to the fact that when 
many of the people are deploying their spouses and families 
actually stay on base now, instead of returning home to their 
families in other States and other communities, which I think 
is very positive, in particular for the community of 
Fayetteville.
    But one of the things that people are concerned about is 
the number of new people coming into that area and whether or 
not the infrastructure and the standards and requirements will 
be ready for this influx of new people.
    Mr. Lamont. I certainly share with you those concerns. 
Clearly, adequate housing for those new people will be 
paramount, and I would like to believe that in the 
deliberations concerning the transition there that they are 
making efforts to resource them adequately and address those 
family needs. I think in my new role it'll be very obvious that 
I will have to be involved in that situation.
    Senator Hagan. Another key component is education. I think 
we talked about the number of families with students involved, 
and I know the State government is doing a lot to help prepare, 
but I think that there will be such a large number of children 
going to the schools in the community also, that a lot of 
attention needs to be addressed to that issue.
    Mr. Lamont. The Army is aware of the large number of 
children in our Army families and we have to address that 
situation. Beyond housing, there is nothing more important than 
education in the minds of the family support groups at home. 
It's educating the children. We must do whatever we can to 
provide them with, not just an adequate education, but a good 
education.
    Senator Hagan. I really encourage you to spend a lot of 
time and energy being sure that does take place, because it is 
of crucial importance to those young children, but obviously to 
their parents, too.
    Once again, congratulations to all of you and I look 
forward to working closely with you.
    Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    I just have a few additional questions for Mr. Blanchard 
and then, Senator Hagan, do you have any additional ones that 
you want to ask now? You can do that now if you'd like, because 
then you will be able to leave if you need to.
    Senator Hagan. I had another one for Dr. Stockton. Last 
week I had the opportunity to meet with the Ambassador from 
Mexico. He emphasized that drug trafficking violence in Mexico 
obviously has been affected by the availability of the assault 
rifles and extensive flow of cash emanating from the U.S. 
border in numerous places. In particular he was talking about 
El Paso, TX, while we were talking.
    I was just wondering, what steps can we take in working 
with the Mexican Government and security officials to curb the 
flow of cash and these assault rifles across the border?
    Dr. Stockton. Senator Hagan, I haven't been briefed in 
detail yet on the policy opportunities that exist. But in 
general, I'm aware that Secretary Napolitano has expressed 
strong interest in ensuring that the border is treated from a 
two-way perspective. That is, just as we are concerned about 
ensuring that we do whatever possible to prevent drugs and 
violence from coming north from Mexico, that the United States 
has a responsibility to do whatever is possible within the law 
to prevent the illicit flow of weapons and cash going down to 
Mexico.
    Senator Hagan. I think it's something that obviously is of 
a concern.
    Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Mr. Blanchard, we just received a devastating report on the 
Air Force acquisition system that was prepared by the Center 
for Naval Analysis at the request of the Secretary of the Air 
Force. The report says in part that: ``Today the Air Force 
acquisition community is a mere shell of its former self. Since 
the mid-1990s, not only has cost growth for Air Force programs 
been rising at an ever-increasing rate, but it seems worse than 
the cost performance of its system services. Every day it seems 
there's a new story in the public media suggesting Air Force 
acquisition incompetence.''
    Some of the well-publicized Air Force problems include the 
presidential helicopter, the tanker lease program, and the 
improper sole source contracts awarded in the so-called Thunder 
Vision case. Now, I'd like to ask you about what role you 
expect to play in the acquisition system? More particularly, 
will you be limited to defending the Air Force in bid protests 
and other legal actions, or are you going to be able to play a 
more proactive role in making sure that the Department complies 
with law and regulation from the outset?
    Mr. Blanchard. Mr. Chairman, Secretary Donley has made it 
very clear that acquisition reform and improving the 
acquisition workforce in the Air Force is one of his top 
priorities and that I need to play a major role; and that, if 
confirmed for this position, I would expect acquisition issues 
to be one of the top priorities. That includes not coming in at 
the end of the process, and making sure that I, if confirmed, 
and other lawyers are involved early on in the process.
    Chairman Levin. Which means proactively?
    Mr. Blanchard. Absolutely.
    Chairman Levin. This committee has always valued the 
important role that's been played by judge advocates general of 
the military departments in providing independent legal advice 
to the chiefs of staff. Now, there were a number of attempts to 
subordinate the legal functions and authorities of the judge 
advocates general to the general counsels of the Air Force and 
the other military departments, and we in response to that 
enacted legislation prohibiting any officer or employee of DOD 
from interfering with the ability of The Judge Advocates 
General of the Military Services to provide their independent 
advice to the respective service chiefs.
    Will you comply fully with that legislation if you're 
confirmed?
    Mr. Blanchard. Absolutely.
    Chairman Levin. Can you describe your relationship which 
you expect to have with the JAG of the Air Force?
    Mr. Blanchard. In my view, the best relationship is a 
partnership. It's where you recognize the special expertise 
that comes from years of service in the Air Force. They know 
the Air Force better than I could possibly learn the Air Force, 
so I need to have that understanding. They know law of war 
issues and they also obviously know military justice issues, 
which is why they have the special role for military justice.
    I expect to have a collegial, cooperative relationship, 
much as I had when I was General Counsel of the Army. I 
understand that our aim is to have concurrence in our legal 
opinions, but if there comes a day when we have a different 
point of view I think our client, the Air Force, is best served 
when both legal views are expressed.
    Chairman Levin. So you're going to respect and defend that 
independence?
    Mr. Blanchard. Absolutely.
    Chairman Levin. Mr. Blanchard, during the last few years 
there has been a number of issues regarding religious practices 
in the military that have gained some attention. They've 
required some revision of Air Force policies. Some of those 
issues involved some senior officers who used their position to 
proselytize other military personnel. They've also involved on 
the other side military chaplains who expressed concern that 
they're constrained in their ability to offer public prayer in 
accordance with their beliefs.
    Can you give us some views on the authority of the Air 
Force relative to the rights of military personnel who have 
different religious beliefs or no religious beliefs, for that 
matter, not to be proselytized?
    Mr. Blanchard. Yes, Mr. Chairman. I believe it's really 
important that we recognize that there are two parts of the 
First Amendment that deal with religion, the Establishment 
Clause and the Free Exercise Clause, and they both come into 
play. The Establishment Clause really requires that we be very 
careful that our leaders don't inject religion into areas where 
it's inappropriate to interject religion, and that's the 
experience I understand the Air Force had at the Air Force 
Academy and other areas, where there was a concern that 
subordinates felt that if they didn't have a particular 
religious view that would not be respected. It's very important 
that we be very careful in those settings.
    On the other hand, we also need to respect the free 
exercise of religion by our airmen, which means that we need to 
help facilitate their religious beliefs. So I think the current 
policies the Air Force has adopted in light of recent events 
are appropriate, but I also understand that you can't just say, 
problem solved, put it away, and go on to the next problem. 
This is an area by its very nature that has some tension and 
has to be watched very carefully by senior leaders.
    Chairman Levin. Will you keep an eye on that issue, and 
particularly the policy clarification which resulted from some 
excesses where people were confronted with religious views and 
put in a position where they were forced to listen, in effect, 
to religious views which they felt reflected one particular 
segment of our religious community?
    Mr. Blanchard. Yes, Mr. Chairman.
    Chairman Levin. Senator Hagan, are you all set?
    Senator Hagan. Yes.
    Chairman Levin. I just have one additional question of Mr. 
Weber. How old is your daughter Eleanor Jane? Is that her name, 
Eleanor Jane?
    Mr. Weber. Yes, Senator, her name is Eleanor Jane.
    Chairman Levin. How old is she? Because she's amazing.
    Mr. Weber. She's been very good. It's been a help to have 
my family behind me. She's 5 years old, Senator. She's at the 
Tuckahoe Elementary School in Arlington, VA.
    Chairman Levin. Well, I have three daughters, all of whom 
at one point were 5 years old. I have five grandchildren, four 
of whom are granddaughters, three of whom have been 5 years 
old. I can only tell you your young daughter is truly amazing. 
She has sat there looking absolutely enthralled and entranced 
with every question we asked, and she doesn't have the vaguest 
idea I'm talking to her, but some day you can just tell her 
what a big hit she was. Would you do that for all of us?
    Mr. Weber. I will. Thank you, Mr. Chairman.
    Chairman Levin. Dr. Stockton, you're going to get your 
answers in quickly for the record that Senator McCain asked. 
It's important that those prehearing questions be answered 
fulsomely.
    We congratulate you all and look forward to a speedy 
confirmation, and we'll stand adjourned.
    [Whereupon, at 11:31 a.m., the committee adjourned.]

    [Prepared questions submitted to Andrew C. Weber by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see a need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this point I do not. However, if confirmed I will remain 
sensitive to the goals that Goldwater-Nichols set forth to facilitate 
jointness in operations, command and control, and acquisition.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed and in the exercise of my duties I became 
convinced of the desirability of a modification of a Goldwater-Nichols 
Act provision, I would consult closely with the Department of Defense 
(DOD) leadership and Congress.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs?
    Answer. The Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs (ATSD(NCB)) advises the 
Secretary of Defense on nuclear and radiological matters and chemical 
and biological defense, to support strategic direction, oversight, and 
integration of DOD Countering Weapons of Mass Destruction (WMD) 
activities, and to ensure that resources and the development of 
Countering WMD operational capabilities are aligned with national 
policy, strategy and the requirements of combatant commanders.
    Question. The primary function of the Assistant to the Secretary of 
Defense for Nuclear and Chemical and Biological Defense Programs is to 
ensure that the nuclear stockpile remains safe, secure, and reliable.
    If confirmed, what steps will you take to ensure that the Secretary 
receives full and complete technical advice on the nuclear stockpile?
    Answer. If confirmed, I will place a very high priority on working 
closely with the Secretary and the Members of the Nuclear Weapons 
Council (NWC) in overseeing the Nation's nuclear stockpile and ensuring 
the Secretary receives comprehensive, excellent quality technical 
advice on all aspects of the stockpile.
    Question. The Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs serves as the Executive 
Director of the NWC.
    If confirmed what steps will you take to ensure that the NWC duties 
are effectively executed?
    Answer. At this time, it would be premature to identify specific 
steps. If confirmed, I intend to work energetically with the NWC to 
ensure that it effectively carries out its statutorily mandated duties. 
Reporting to and consulting closely with Congress is an important 
component of the execution of the Board's duties.
    Question. Assuming you are confirmed, what additional duties and 
functions do you expect that the Secretary of Defense would prescribe 
for you?
    Answer. If confirmed, I expect the Secretary to direct me to 
support his emphasis on re-establishing the professionalism, 
dedication, and attention to detail necessary to maintain the 
Department's nuclear weapons in a safe and secure manner. In addition, 
I expect he will ask me to oversee the Cooperative Threat Reduction 
Program, the Chemical Weapons Demilitarization Program, the Defense 
Threat Reduction Agency (DTRA), and the Chemical and Biological Defense 
Programs.
                             relationships
    Question. If confirmed, how will you work with the following 
officials in carrying out your duties:
    The Secretary of Defense.
    Answer. If confirmed, I expect to report directly to the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(USD(AT&L)), and through him and the Deputy Secretary and Secretary. On 
matters directly affecting my technical responsibilities (safety, 
security, and reliability of the stockpile), I expect to have direct 
access to the Secretary as needed.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would report through the USD(AT&L) to the 
Deputy Secretary of Defense. I would also have direct access to the 
Deputy Secretary in my role as the Executive Secretary of the NSPD-28 
Committee of Principals, which the Deputy Secretary chairs.
    Question. The Under Secretaries of Defense.
    Answer. If confirmed, I would report directly to the USD(AT&L). I 
would also work closely with Under Secretary of Defense for Policy 
(USD(P)) to insure the Secretary's nuclear, chemical and biological 
defense policies, both home and abroad, are understood and implemented. 
I would work closely with the Under Secretary of Defense Comptroller 
(USD(C)) and Under Secretary of Defense for Personnel and Readiness 
(USD(P&R)) to ensure nuclear, chemical and biological defense, and 
chemical demilitarization programs are adequately resourced and 
staffed.
    Question. The Service Secretaries.
    Answer. If confirmed, I will work with the Service Secretaries to 
ensure that nuclear, chemical and biological defense, and chemical 
demilitarization programs are given the high priority they deserve.
    Question. The commanders of the combatant commands, particularly 
U.S. Strategic Command, U.S. Special Operations Command, and U.S. 
Northern Command.
    Answer. If confirmed, I would work closely with the combatant 
commanders to ensure that they have the appropriate systems needed to 
execute their chemical, nuclear, and biological defense mission.
    Question. The Assistant Secretary of Defense (ASD) for Homeland 
Defense and America's Security.
    Answer. If confirmed, I would work closely with the ASD for 
Homeland Security to ensure that Nuclear, Chemical, and Biological 
Defense programs and DTRA meet his requirements.
    Question. The Assistant Secretary of Defense for Global Strategic 
Affairs.
    Answer. If confirmed, I would work with the ASD for Global 
Strategic Affairs to ensure that the policy requirements for Nuclear, 
Chemical and Biological Defense Programs are met. I would also expect 
to work closely on programs to counter WMD, including the Cooperative 
Threat Reduction Program.
    Question. The ASD for Special Operations and Low Intensity Conflict 
(SOLIC) and Independent Capabilities.
    Answer. If confirmed, I would work closely with ASD(SOLIC) to 
insure the Secretary's nuclear, chemical and biological defense 
policies are consistent, understood by our forces and allies, and are 
being properly implemented.
    Question. The Director of the Defense Threat Reduction Agency.
    Answer. If confirmed, the Director of DTRA would report to me 
regarding his responsibilities in combat support, the Cooperative 
Threat Reduction Program, counter proliferation, on-site inspection, 
research and development, and chemical and biological defense programs.
    Question. The Secretary of Energy.
    Answer. If confirmed, I would work with the Secretary of Energy and 
his staff on issues related to the nuclear stockpile, nonproliferation 
and counterterrorism.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration.
    Answer. As partners in the nuclear weapons program, if confirmed, I 
would work closely with both the Administrator and Deputy Administrator 
to ensure there are sufficient reliable, safe, and secure weapons to 
support deterrence, and the Nation has the capability to maintain them.
    Question. Officials in the Department of Homeland Security (DHS) 
with responsibilities for nuclear, chemical, and biological homeland 
defense matters.
    Answer. ATSD(NCB) and DHS are partners in a number of areas such as 
nuclear detection, nuclear forensics, chemical and biological defense, 
and counterproliferation. I will work closely with DHS to ensure 
programs in these areas are mutually supportive.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have been privileged to dedicate 24 years of continuous 
public service to strengthening U.S. national security and countering 
the threat of WMD. My experience leading sensitive projects to reduce 
nuclear, chemical and biological weapons threats will serve me well if 
I am confirmed in the position of Assistant to the Secretary of Defense 
for Nuclear and Chemical and Biological Defense Programs.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs?
    Answer. As with every new position I have taken during my long 
career in public service, if confirmed I will expend considerable 
effort studying those areas of the portfolio for which I do not have in 
depth experience. In addition to extensive briefings and meetings with 
counterparts and subject matter experts, I would early on visit the 
facilities where important work on nuclear, chemical and biological 
defense programs takes place. If confirmed, I would also focus on 
ensuring that I have the best possible team in place to successfully 
execute the duties of the office.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs?
    Answer. First, making sure that a high priority is placed ensuring 
that Department's nuclear weapons are safe, secure and reliable. 
Second, to improve our Nation's defensive preparations for an enemy's 
potential use of nuclear, biological or chemical weapons. Third, 
promoting the rapid and safe demilitarization of our chemical weapons 
stockpile. Fourth, continuing and expanding the Cooperative Threat 
Reduction program beyond the Former Soviet Union to help prevent the 
proliferation of WMD.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. To meet the first challenge, I intend to focus on the 
actions taken to date, review the DTRA conducted inspection reports to 
ensure the follow-up actions are effective and work with each 
stakeholder to ensure the proper focus on nuclear policies and 
procedures. For the second challenge, I would work with stakeholders to 
enhance the nation's ability to defend against potential WMD attacks. 
For the third challenge, I intend to closely monitor the execution of 
the Chemical Demilitarization Program. For the fourth challenge, I 
intend to work with OSD Policy and DTRA to ensure that there is strong 
acquisition oversight of the CTR program as it expands.
    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense Programs?
    Answer. The most serious problem will be enabling the nuclear 
enterprise to meet the challenges of an aging stockpile and 
infrastructure in order to maintain a safe, secure, reliable, and 
credible deterrent.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I would consult closely with the NWC and Congress regarding 
the findings of the Congressional Commission on the Strategic Posture 
of the United States and the ongoing Nuclear Posture Review.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs?
    Answer. First, placing a high priority on a safe, secure, reliable 
and credible deterrent. Second, furthering the acceleration of our 
national capability to respond to new and emerging nuclear, biological 
and chemical threats. Third, continuing and expanding the CTR program 
to prevent proliferation of WMD. Fourth, continue to maintain a strong 
NWC.
                            reporting chain
    Question. Section 142 of title 10, U.S.C., requires that the 
Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs advise the Secretary of Defense on nuclear 
energy, nuclear weapons, and chemical and biological defense programs. 
The responsibilities for chemical and biological defense were added to 
the Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs in 1996. The position was originally 
created as the Assistant to the Secretary of Defense to ensure direct 
and timely access to the Secretary of Defense in the event that any 
matter implicating the safety, security, or reliability of the nuclear 
weapons stockpile needed to be immediately provided to the Secretary.
    What is your understanding of to whom you would report, if 
confirmed, within DOD, and who would report to you?
    Answer. If confirmed, I would report to USD(AT&L), and through him 
and the Deputy Secretary and Secretary of Defense.
    Question. If confirmed, would you expect to have direct and timely 
access to the Secretary of Defense for matters pertaining to the 
safety, security, and reliability of nuclear weapons?
    Answer. Yes.
                        nuclear weapons council
    Question. Section 179 of title 10 of the U.S.C. designates the 
Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs as the Executive Director of the NWC. The 
Chairman of the NWC is the Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Would it be your expectation, if confirmed, to have direct 
responsibility, authority, direction, and control of all the assets, 
resources, and personnel needed to fulfill the responsibilities of 
Executive Director of the NWC?
    Answer. Yes.
    Question. If confirmed as Assistant to the Secretary of Defense for 
Nuclear and Chemical and Biological Defense Programs, how frequently 
would you expect the NWC to meet and, in your view, would that be 
sufficient to meet the obligations of the Council?
    Given the large number of critical issues that are on the agenda of 
the NWC, I would expect the NWC to meet more frequently than the 
statutory minimum of four times per year.
    If confirmed as Assistant to the Secretary of Defense for Nuclear 
and Chemical and Biological Defense Programs, how would you ensure that 
the NWC carries out its statutorily mandated duties?
    Answer. If confirmed, I intend to work personally with each of the 
members of the Council to ensure it effectively carries out its 
statutorily mandated duties.
    Question. Are there any changes that you would recommend to the 
membership, organization, or structure of the NWC?
    Answer. Based on my current knowledge, I do not see the need to 
recommend structural changes to the NWC at this time. If confirmed, I 
would evaluate this issue.
    Question. What do you see as the challenges that face the NWC in 
the next 4 years and what would you do to address these challenges?
    Answer. The foremost challenges I see are the need to support the 
Nuclear Posture Review and implement its findings; address mounting 
concerns in the aging stockpile; and ensure that we have the human 
capital and resources required to maintain a safe, secure, reliable, 
and credible stockpile.
    organizational structure of the office of the assistant to the 
                               secretary
    Question. What is your understanding of the organizational 
structure of the office of the Assistant to the Secretary of Defense 
for Nuclear and Chemical and Biological Defense Programs?
    Answer. My understanding is that there is currently a Principal 
Deputy who is also responsible for Nuclear, Chemical and Biological 
Treaty Management, a Nuclear Matters Deputy, a Chemical and Biological 
Defense Programs and Chem Demil Deputy, and the Director of DTRA, who 
reports to the ATSD(NCB). In addition, there are supporting staff to 
enable the functions of the office.
    Question. Do you believe this structure is adequate or would you 
make any changes if confirmed?
    Answer. If confirmed I plan to evaluate the structure and make 
specific changes as appropriate.
         nuclear weapons and the stockpile stewardship program
    Question. Do you believe that there are any technical reasons to 
resume nuclear weapons testing at the present time or at any 
foreseeable time in the future?
    Answer. No.
    Question. Do you support the Stockpile Stewardship Program?
    Answer. Yes.
    Question. Do you believe that the Stockpile Stewardship Program is 
capable for the foreseeable future of supporting the nuclear weapons 
stockpile without nuclear weapons testing?
    Answer. Yes.
    Question. What are your views on the current moratorium on nuclear 
weapons testing?
    Answer. I support the moratorium.
    Question. What are your views on the Comprehensive Test Ban Treaty 
(CTBT)?
    Answer. I support the President's position regarding ratification 
of the CTBT.
    Question. In your view, are there any additional capabilities that 
the Stockpile Stewardship program should develop?
    Answer. If confirmed I would consult with counterparts to determine 
what, if any, additional capabilities should be developed to maintain a 
safe, secure, reliable, and credible deterrent.
    Question. What are your views on the feasibility and certifiability 
(without nuclear testing) of the Reliable Replacement Warhead (RRW)?
    Answer. My understanding is the RRW was technically feasible within 
existing policy.
    Question. What role would you play in establishing requirements to 
ensure security of nuclear weapons in the custody of the Military 
Services?
    Answer. If confirmed, I intend to review the current program and 
make any necessary changes or recommendations to ensure the security of 
our nuclear weapons.
    Question. If confirmed, how quickly and under what circumstances 
would you inform Congress in the event there is ever any problem with 
any nuclear warhead?
    Answer. As quickly as possible, and in accordance with statutory 
requirements.
    Question. If confirmed, what role, if any, do you anticipate you 
will play in reviewing the size and makeup of the nuclear weapons 
stockpile?
    Answer. If confirmed, I would expect to be a major voice in 
recommending to the Secretary the size and makeup of the nuclear 
weapons stockpile.
    Question. If confirmed, what role, if any do you anticipate you 
will play in the annual certification process?
    Answer. I would expect to support the annual certification process 
in my role as Executive Director for the NWC.
    Question. Do you believe the annual certification process is 
adequate or would you recommend any changes?
    Answer. At this time, I have no reason to doubt the adequacy of the 
current process. It would be premature to recommend any changes.
               security of the nuclear weapons stockpile
    Question. If you are confirmed, what role would you have and do you 
believe the NWC should have in developing, implementing, and overseeing 
implementation of nuclear security orders and regulations?
    Answer. Both the ATSD(NCB) and the NWC have responsibilities to 
insure that our nuclear weapons are secure. Monitoring security 
operations and implementation policies, reviewing inspection reports, 
and insuring sufficient funding for Service security programs are some 
of those responsibilities.
    Question. If confirmed what role would you play in nuclear security 
and nuclear operational inspections?
    Answer. If confirmed, I would expect to review all DTRA conducted 
inspections. Additionally, I would expect to review all Service 
conducted inspections and of the results of the Mighty Guardian Force 
on Force exercises.
degradation in nuclear expertise, technical rigor, and compliance with 
                     regulations, rules, and orders
    Question. Over the course of the last 18 months there have been a 
number of instances within DOD of inattention, sloppiness, and 
intentional disregard for nuclear rules, orders and regulations. The 
reviews that have been conducted as a result of these incidents have 
identified degradation in the attention to nuclear matters as one of 
the root causes of the many incidents.
    If confirmed, what role would you anticipate you would play and the 
NWC would play in restoring discipline and credibility in the nuclear 
enterprise within DOD and military Services?
    Answer. If confirmed, I expect to personally work with the 
Secretary, Service Secretaries, and the NWC continuing to restore 
discipline and credibility of the nuclear enterprise and continue to 
implement necessary reforms to ensure the highest standards for 
safeguarding our Nation's nuclear weapons.
              implementation of the admiral donald report
    Question. If confirmed, what role, if any, would you expect to play 
in implementing corrective actions recommended by Admiral Donald in his 
report on the security of nuclear weapons in the Air Force?
    Answer. I have not been briefed on the Admiral Donald Report, and 
it would not be appropriate to comment on it at this time. If 
confirmed, I will review it carefully and evaluate the progress on 
implementation of its recommendations.
    Question. Are there any aspects of the report with which you 
disagree?
    Answer. I have not been briefed on the report and cannot comment at 
this time.
           implementation of the defense science board report
    Question. At the end of 2008, the Defense Science Board (DSB) also 
completed a review of the nuclear enterprise in DOD and made 
recommendations. If confirmed, what role, if any, would you expect to 
play in implementing corrective actions recommended by the DSB?
    Answer. I have not had the opportunity to meet with this DSB task 
force and be briefed on their findings. If confirmed, I expect to work 
with the Secretary and the NWC on any necessary corrective actions 
identified in the Defense Science Board review.
    Question. Are there any aspects of the report with which you 
disagree?
    Answer. As stated above, I have not yet read the report. If 
confirmed, I intend to work with the Secretary and the NWC in 
overseeing implementation of appropriate recommendations.
                chemical and biological defense program
    Question. Section 142 of title 10, U.S.C., states that the 
Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs shall advise the Secretary of Defense on 
chemical and biological defense, as well as on nuclear matters. Your 
background is primarily in biological threat reduction and related 
issues.
    If confirmed, how would you plan to become familiar with the issues 
and technology associated with chemical and biological defense matters?
    Answer. I am familiar with the issues and technology associated 
with chemical and biological defense matters based upon my prior 
experience in the Office of the Secretary of Defense. If confirmed, I 
will increase my knowledge of the current programs and issues in the 
NCB portfolio. I believe that to fully understand the NCB Defense 
Programs for which I would have oversight I will engage the elements of 
the Chemical and Biological Defense Program (CBDP), the CDP, and DTRA 
at their locations. I will visit early on the demilitarization sites 
and the CBDP research laboratories.
                chemical and biological defense matters
    Question. If you are confirmed, what do you expect your roles and 
responsibilities would be with respect to chemical and biological 
defense matters?
    Answer. The ATSD(NCB) is the principal staff advisor to the 
Secretary on Chemical and Biological Defense matters. The ATSD(NCB) is 
responsible for oversight, coordination, and integration of the 
Chemical and Biological Defense Program. If confirmed, I would expect 
to work closely with the Services, Joint Program Executive Office for 
Chemical and Biological Defense, and DTRA to meet those 
responsibilities.
    Question. If confirmed, would you review the chemical and 
biological defense program and make any needed recommendations to 
Congress for improving the program?
    Answer. Yes.
    Question. What are your general priorities with respect to the 
Chemical and Biological Defense Program?
    Answer. The general priorities for the Chemical and Biological 
Defense Program are: contamination avoidance, protection, and enhancing 
the Department's ability to respond to emerging biological and chemical 
threats.
  interaction with other federal agencies on chemical and biological 
                                matters
    Question. DHS and the Department of Health and Human Services play 
important roles in planning and implementing U.S. policy and programs 
for protecting the United States against biological and chemical 
threats, including the development and stockpiling of vaccines and 
therapeutic products.
    If confirmed, how would you work with these agencies to ensure the 
effective coordination and collaboration of efforts to improve U.S. 
security against biological and chemical threats?
    Answer. If confirmed I would work with each of these Agencies to 
insure that programs are mutually supportive, avoid duplication, and 
share results.
               wmd commission view on biological threats
    Question. The Commission on the Prevention of WMD Proliferation and 
Terrorism concluded that ``terrorists are more likely to be able to 
obtain and use a biological weapon than a nuclear weapon,'' and also 
that ``the U.S. Government needs to move more aggressively to limit the 
proliferation of biological weapons and reduce the prospect of a 
bioterror attack.''
    If confirmed, what approach would you take to reducing the risks 
and consequences of a biological terror attack against the United 
States?
    Answer. I would continue the current Departmental emphasis to 
protect military forces from current and/or emerging biological threats 
through aggressive research and development, and proactive coordination 
and integration with the Departments of Homeland Security and Health 
and Human Services. I would also work to strengthen the Department's 
Nunn-Lugar Biological Threat Reduction Program to prevent such threats.
             transformational medical technology initiative
    Question. DOD has undertaken a Transformational Medical Technology 
Initiative (TMTI) for chemical and biological defense. The purpose of 
this initiative is to pursue broad spectrum approaches to protecting 
our military forces against a wide variety of threats, including 
genetically engineered biological threats. One of the objectives of the 
program is to develop advanced means of rapid and affordable vaccine 
production.
    What are your views on the value of this initiative, and would you 
support it if confirmed?
    Answer. Yes, I would support TMTI as a high value initiative within 
the Department. I understand it has developed a preliminary end-to-end 
capability for response to emerging and engineered biological threats. 
I am aware TMTI is a vital part of the National Biodefense Strategy and 
the Integrated National Biodefense Medical Countermeasures Portfolio, 
which is coordinated with Executive Office of the President, DOD, and 
the Department of Health and Human Services.
                  vaccine development and acquisition
    Question. What role would you expect to play, if confirmed, in 
ensuring that vaccines and therapeutic products needed to ensure 
protection and medical treatment of military and civilian employees of 
DOD are developed and acquired in a timely and effective manner?
    Answer. If confirmed I would work closely with the ASD for Health 
Affairs to ensure medical treatment and protection of deployed U.S. 
servicemembers and civilian employees are developed and acquired. As 
the ATSD(NCB) I will work through our Joint Program Executive Office 
for Chemical and Biological Defense which is responsible for the 
development, procurement, fielding, and sustaining of premier medical 
protection and treatment capabilities against chemical and biological 
warfare agents.
                    chemical demilitarization issues
    Question. Since 2001, responsibility and oversight for the chemical 
demilitarization program within DOD have been under the Assistant to 
the Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs.
    If confirmed, would responsibility for and oversight of the 
chemical demilitarization program remain within your office?
    Answer. Yes.
    Question. The United States is a party to the Chemical Weapons 
Convention (CWC) and, under the terms of the treaty, is obligated to 
destroy its chemical weapons stockpile by no later than the extended 
deadline of April 2012.
    Do you agree that the United States should take all necessary steps 
to meet its obligations under the CWC?
    Answer. Yes.
    Question. If confirmed, what actions would you take to ensure 
adequate funding is requested to permit the most expeditious 
destruction of the U.S. chemical weapons stockpile, consistent with the 
legal requirement to protect public health, safety, and the 
environment?
    Answer. If confirmed, I will review the current program to ensure 
that priorities, funding, and operations are consistent with its 
objectives. If additional funding is needed, I will support those 
requests.
    Question. On April 10, 2006, Secretary of Defense Rumsfeld notified 
Congress that the United States would not meet the extended deadline 
under the CWC for destruction of the United States chemical weapons 
stockpile, but would ``continue working diligently to minimize the time 
to complete destruction without sacrificing safety and security,'' and 
would also ``continue requesting resources needed to complete 
destruction as close to April 2012 as practicable.''
    If confirmed, what actions would you take to ensure the full 
implementation of those commitments?
    Answer. If confirmed, I will review the program against those 
commitments and make any necessary changes or recommendations needed to 
ensure full implementation.
consequence management of chemical, biological, radiological, nuclear, 
                   or high-yield explosive incidents
    Question. DOD has a mission of providing support to civil 
authorities for consequence management of domestic chemical, 
biological, radiological, nuclear, or high-yield explosive (CBRNE) 
incidents, if directed by the President or the Secretary of Defense. 
Since 2002, the ASD for Homeland Defense and Americas' Security Affairs 
and the Commander of U.S. Northern Command have had responsibilities 
for planning and executing that mission.
    If confirmed, how would you expect to work with the ASD for 
Homeland Defense and Americas' Security Affairs and the Commander of 
U.S. Northern Command on issues related to the Department's 
capabilities to provide support to civil authorities for CBRNE 
consequence management, as well their homeland defense missions related 
to nuclear, chemical, or biological weapons or materials?
    Answer. ATSD(NCB) oversees a number of programs designed to provide 
DOD CBRNE responders with equipment, training, command and control 
support, logistical planning, and technical support. If confirmed I 
will insure that these programs are responsive to the needs of ASD (HD) 
and combatant commands.
    Question. DHS is the lead Federal agency for planning, 
coordinating, and implementing consequence management of CBRNE 
incidents in the United States, in conjunction with the States and 
territories.
    If confirmed, what relationship would you expect to have with DHS 
and its component entities?
    Answer. If confirmed I would expect to coordinate closely with DHS 
for planning, coordinating, and implementing consequence management of 
CBRNE incidents.
    Question. What do you believe is the appropriate role for DOD in 
providing support to civil authorities for CBRNE consequence 
management?
    Answer. A CBRNE event would most likely constitute a national 
emergency. DOD's role should be to provide whatever support and assets 
that the President requested in order to save lives, minimize damage, 
and facilitate recovery.
    Question. If confirmed, what role would you expect to have in 
regard to the oversight of DOD capabilities related to consequence 
management of CBRNE incidents?
    Answer. If confirmed, I would expect my role to be a senior advisor 
to the Secretary of Defense on consequence management capabilities. 
This would include the states use of Title 32 assets including their 
WMD Civil Support Teams and CBRNE Enhanced Response Force Packages.
      cooperative threat reduction programs (nunn-lugar programs)
    Question. Do you support the Cooperative Threat Reduction Programs?
    Answer. Yes.
    Question. If confirmed, would you support joint research programs 
between Russia and the United States in the areas of chemical or 
biological weapons defense?
    Answer. Yes.
    Question. What is your understanding as to your responsibilities 
with respect to the Cooperative Threat Reduction programs?
    Answer. The ATSD(NCB) has oversight responsibility for the 
implementation of the CTR program.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense Programs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
              Question Submitted by Senator Susan Collins
                         emergency preparedness
    1. Senator Collins. Mr. Weber, one of the most disturbing 
conclusions of the Commission on the National Guard and Reserves report 
was the assertion that there was ``an appalling gap'' in our Nation's 
ability to respond to the use of a weapon of mass destruction on our 
soil. Specifically, the Commission expressed concern that the forces 
that would respond to such events had not been fully budgeted for, 
sourced, manned, trained, or equipped. In a hearing earlier this year, 
General Victor Renuart stated that he felt that gap no longer existed, 
and he pointed lo the establishment of Chemical, Biological, 
Radiological, Nuclear, and Explosive (CBRNE) Consequence Management 
Response Forces (CCMRFs)--one already stood up with two more on the 
way--as evidence of this. It is my understanding that Guard and Reserve 
personnel will comprise a substantial amount of these units. However, 
in the event of something as catastrophic as the detonation of a 
nuclear weapon in an American city, it seems likely that Governors are 
going to have a significant need for these troops. As has been 
discussed in several hearings held by the Senate Homeland Security and 
Governmental Affairs Committee, such an event may necessitate closing 
down interstate highways and major transportation hubs, handling 
evacuees from other States, and maintaining civil order in the event 
that people begin evacuating major cities out of a fear of other 
nuclear weapons being detonated. Do you believe that the States that 
will be required to provide these troops to the CCMRF units are going 
to actually be prepared to release them in the event of a catastrophic 
incident?
    Mr. Weber. The release of Guard and Reserve personnel to support 
the CBRNE CCMRFs is not under the purview of the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs as I understand the functions of my office. However, the 
employment of Guard and Reserve troops in response to something as 
catastrophic as the detonation of a nuclear weapon in an American city 
is a vital concern to the department and I am evaluating my office's 
role in this matter.
                                 ______
                                 
    [The nomination reference of Andrew C. Weber follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 29, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Andrew Charles Weber, of Virginia, to be Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense Programs, 
vice Frederick S. Celec.
                                 ______
                                 
    [The biographical sketch of Andrew C. Weber, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Andrew C. Weber
    Andy Weber is currently Adviser for Threat Reduction Policy in the 
Office of the Secretary of Defense, where he has been serving since 
1996. For the past 13 years his responsibilities have included the 
Nunn-Lugar Department of Defense Cooperative Threat Reduction Program. 
He played a key role in Nunn-Lugar operations to remove weapons grade 
uranium from Kazakhstan and Georgia, and nuclear capable MiG-29 
aircraft from Moldova. Mr. Weber developed and oversees the Department 
of Defense Biological Threat Reduction Program, which prevents the 
proliferation of pathogens, technology, and expertise. For his work at 
the Department of Defense, Mr. Weber has twice been awarded the 
Exceptional Civilian Service Medal.
    Most of Mr. Weber's 24 years of public service have been dedicated 
to reducing the threat of weapons of mass destruction. He served 
previously as a United States Foreign Service Officer, and his 
diplomatic assignments included Saudi Arabia, Germany, Kazakhstan, and 
Hong Kong.
    Since 2002 Mr. Weber has taught a course on Force and Diplomacy at 
the Edmund A. Walsh Graduate School of Foreign Service of Georgetown 
University.
    He is a graduate of Cornell University, and has a Master's of 
Science in Foreign Service from Georgetown University.
    Mr. Weber speaks Russian and is a member of the Council on Foreign 
relations. He lives in Arlington, VA, with his wife Julie and daughter 
Eleanor.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Andrew C. 
Weber in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Andrew Charles Weber.

    2. Position to which nominated:
    Assistant to the Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs.

    3. Date of nomination:
    April 29, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 28, 1960; New York City, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Julie Powell Holt.

    7. Names and ages of children:
    Eleanor Jane Weber, age 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Edmund A. Walsh School of Foreign Service, Georgetown University, 
Washington, DC, M.S.F.S. 1986 (1984-1986).
    Cornell University, Ithaca, NY, B.A. 1982 (1978-1982).
    Scarsdale High School, Scarsdale, NY, 1978 (1974-1978).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Adviser for Threat Reduction Policy, Office of the Secretary of 
Defense, U.S. Department of Defense, July 1999-present.
    Special Adviser for Threat Reduction Policy, Detailed from 
Department of State to the Office of the Secretary of Defense, December 
1996-July 1999.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Department of State, Analyst, 1985-1986.
    U.S. Foreign Service Officer, U.S. Department of State, 1986-1999:

          Training Assignment (1986-1987)
          Vice Consul, U.S. Consulate Jeddah (1987-1989)
          Political Officer, U.S. Embassy Bonn (1990-1992)
          Russian Language Training, Middlebury, VT, and Arlington, VA 
        (1992-1993)
          Political Officer, U.S. Embassy Almaty (1993-1995)
          Political Officer, U.S. Consulate Hong Kong (1995-1996)
          Detail from the Department of State to the Office of the 
        Secretary of Defense, Special Adviser for Threat Reduction 
        Policy, Office of the Deputy Assistant Secretary of Defense for 
        Threat Reduction Policy (December 1996-July 1999)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Edmund A. Walsh Graduate School of Foreign Service, Adjunct Faculty 
(2002-present).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations, member.
    The Textile Museum, Advisory Council member.
    International Hajji Baba Society (rugs and textiles), board member.
    Overlee Association, swimming pool membership.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Obama for America, volunteer (2008).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Obama for America, $4,600 ($2,300 primary, $2,300 general).

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Nunn-Lugar Award for Outstanding Contribution to Global Security 
(2006).
    U.S. Department of Defense Medal for Exceptional Civilian Service 
(2001, 2003).
    Edward Weintal Fellowship, Edmund A. Walsh Graduate School of 
Foreign Service, Georgetown University (1985).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Andrew C. Weber.
    This 11th day of May, 2009.

    [The nomination of Andrew C. Weber was reported to the 
Senate by Chairman Levin on May 14, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 18, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. Paul N. Stockton by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. We now have a generation of military leaders 
for whom operating in a coordinated and joint, multi-Service 
environment is the norm. Given these successes, I do not see an 
immediate need to change the provisions of this legislation. If 
confirmed, I would hope to be in a position to help strengthen the U.S. 
Government's ability to craft effective whole-of-government approaches 
to the national security challenges we face.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my previous answer.
                             relationships
    Question. What do you see as the relationship between the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs and each of the following:
    The Secretary of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs serves as 
the principal civilian advisor to the Secretary of Defense and the 
Under Secretary of Defense for Policy on Homeland Defense activities, 
Defense Support of Civil Authorities, and Western Hemisphere security 
matters.
    Question. The Deputy Secretary of Defense.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs provides support to the Deputy Secretary 
similar to that provided to the Secretary, as described above.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs functions under the authority, direction and 
control of the Under Secretary of Defense for Policy and provides 
advice, counsel, and support to the Under Secretary on Homeland 
Defense, Defense Support of Civil Authorities, and Western Hemisphere 
security matters in interagency for a (such as National Security 
Council and Homeland Security Council deliberations), engagement with 
interagency and Western Hemisphere interlocutors, and in the Planning, 
Programming, Budgeting, and Execution (PPBE) processes inside the 
Department, including the Quadrennial Defense Review, the Quadrennial 
Roles and Missions Review, and annual program and budget reviews.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs works 
closely with, and provide homeland defense, Defense Support of Civil 
Authorities, and Western Hemisphere policy inputs to the Under 
Secretary of Defense for Intelligence to achieve the Secretary of 
Defense's objectives, particularly the defense of the United States 
from attack upon its territory at home and to secure its interests 
abroad in the Western Hemisphere.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Assistant Secretary 
of Defense for Special Operations/Low Intensity Conflict and 
Interdependent Capabilities to provide the Under Secretary of Defense 
for Policy and the Secretary of Defense with advice and recommendations 
on policy issues regarding combating terrorism within the United States 
and policy oversight to ensure that the Secretary's guidance and 
decisions are implemented properly.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Assistant Secretary 
of Defense for International Security Affairs to provide the Under 
Secretary of Defense for Policy and the Secretary of Defense with 
advice and recommendations on policy issues regarding emerging threats 
to the United States and policy oversight to ensure that the 
Secretary's guidance and decisions are implemented properly.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
and the civilian officials of the military departments in charge of 
Reserve affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Assistant Secretary 
of Defense for Reserve Affairs and the civilian officials of the 
military departments in charge of Reserve affairs on Department of 
Defense policy regarding the development, readiness, and employment of 
National Guard and Federal Reserve component forces within the United 
States and policy oversight to ensure that the Secretary of Defense's 
guidance and decisions are implemented properly.
    Question. The Chief of the National Guard Bureau, and the Directors 
of the Army and Air National Guard.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Chief of the National 
Guard Bureau, and the Directors of the Army and Air National Guard, 
particularly regarding the roles, capabilities, and readiness of the 
National Guard to support the homeland defense and civil support 
priorities and objectives of the Secretary of Defense.
    Question. The Director of the Defense Intelligence Agency.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs works 
closely with, and provide homeland defense, Defense Support of Civil 
Authorities, and Western Hemisphere policy inputs to, the Director of 
the Defense Intelligence Agency to achieve the Secretary of Defense's 
objectives, particularly the defense of the United States from attack 
upon its territory at home and to secure its interests abroad in the 
Western Hemisphere.
    Question. The Assistant Secretary of Defense for Health Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Assistant Secretary 
of Defense for Health Affairs on Department of Defense policy, 
particularly regarding health force protection, the threat of 
biological terrorism, the medical aspects of domestic consequence 
management, and Defense Support of Civil Authorities.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Assistant Secretary 
of Defense for Networks and Information Integration on programs, 
processes, and supporting infrastructures to provide for mission 
assurance, crisis management, and information sharing with DOD's 
Federal, State, local, and international partners.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff and the Joint Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President, the National Security Council, and the Homeland 
Security Council, the Chairman has a unique and critical military role. 
If confirmed as the Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs, I will work closely with the Chairman 
and Vice Chairman to support the efforts of the Secretary and Deputy 
Secretary, and to ensure that their military advice is taken into 
account in an appropriate manner.
    Question. The Commander of United States Northern Command and the 
North American Aerospace Defense Command.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Commander of the 
North American Aerospace Defense Command and U.S. Northern Command to 
support the efforts of the Under Secretary of Defense for Policy, 
Secretary and Deputy Secretary, particularly in the areas of homeland 
defense, Defense Support of Civil Authorities, and Western Hemisphere 
strategy and policy, contingency planning and policy oversight of 
operations.
    Question. The Commander of United States Southern Command.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Commander of the U.S. 
Southern Command to support the efforts of the Under Secretary of 
Defense for Policy, Secretary and Deputy Secretary, particularly in the 
areas of homeland defense, Defense Support of Civil Authorities, and 
Western Hemisphere strategy and policy, contingency planning and policy 
oversight of operations.
    Question. The Commander of United States Pacific Command.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Commander of the U.S. 
Pacific Command to support the efforts of the Under Secretary of 
Defense for Policy, Secretary and Deputy Secretary, particularly in the 
areas of homeland defense and Defense Support of Civil Authorities 
strategy and policy, contingency planning and policy oversight of 
operations.
    Question. The Commander of United States Strategic Command.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Commander of the U.S. 
Strategic Command to support the efforts of the Under Secretary of 
Defense for Policy, Secretary and Deputy Secretary, particularly in the 
areas of homeland defense and Defense Support of Civil Authorities 
strategy and policy, contingency planning and policy oversight of 
operations.
    Question. The Director of the Defense Threat Reduction Agency.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs, in coordination with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, works closely with 
the Director of the Defense Threat Reduction Agency, particularly 
regarding efforts in domestic chemical, biological, radiological, and 
nuclear threat reduction and defense, counterproliferation, and 
emergency response support and training.
    Question. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs works closely with the Assistant to the 
Secretary of Defense for Nuclear, Chemical, and Biological Defense 
Programs, particularly regarding DOD chemical, biological, and nuclear 
defense programs as they relate to homeland defense, antiterrorism/
force protection, and Defense Support of Civil Authorities.
    Question. The State Governors.
    Answer. In accordance with title 50, U.S.C., the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs is responsible for coordinating DOD assistance to Federal, 
State, and local officials. Governors play a critical role in Homeland 
Security. If confirmed, I look forward to becoming more familiar with 
my responsibilities to support state governors and to take carefully 
into account their perspective on the role of DOD in this process.
                       duties and qualifications
    Question. DOD Directive 5111.13 of January 16, 2009, states that 
the Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs (ASD(HD&ASA)), ``under the authority, direction, and 
control of the Under Secretary of Defense for Policy (USD(P)), serves 
as the principal civilian advisor to the Secretary of Defense and the 
USD(P) on homeland defense activities, Defense Support of Civil 
Authorities (DSCA), and Western Hemisphere security matters.'' It 
further elaborates that the ASD(HD&ASA) shall provide overall 
supervision of homeland defense activities of the Department of Defense 
(DOD) which include ``Defense Critical Infrastructure Program (DCIP); 
domestic antiterrorism; the Defense Continuity Program; other homeland 
defense-related activities; and alignment of homeland defense policies 
and programs with DOD policies for counterterrorism and 
counternarcotics.''
    What is your understanding of the duties and functions of the 
Assistant Secretary of Defense (ASD) for Homeland Defense and Americas' 
Security Affairs position to which you have been nominated, and do they 
differ from those described in DOD Directive 5111.13?
    Answer. My understanding of the duties and functions of the 
Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs is consistent with those described in DOD Directive 
5111.13, as well as other applicable DOD directives.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As the founding director of the Center for Homeland Defense 
and Security at the Naval Postgraduate School in Monterey, California, 
I have led a wide range of graduate education and research programs in 
direct support of the Department of Defense the Department of Homeland 
Security, other Federal departments, and state and local agencies and 
elected officials across the United States. That position gave me an 
opportunity to closely listen to and learn from those on the front 
lines of strengthening homeland defense and security. My subsequent 
position as senior research scholar at Stanford University has enabled 
me to examine these issues in still greater detail.
    My background and experience in Western Hemispheric Affairs 
security issues stemmed initially from staffing those regional issues 
for Senator D.P. Moynihan as his PRM in the Senate Foreign Relations 
Committee. Building on that expertise, I helped found and then directed 
the Center for Civil Military Relations (CCMR) at the Naval 
Postgraduate School. Sponsored by the Defense Security Assistance 
Agency, CCMR has conducted dozens of seminars in the Western Hemisphere 
to help partner nations strengthen democratic control over their 
security forces. I have served on the seminar faculty teams in seminars 
in Colombia and El Salvador, and in many more seminars at NPS conducted 
for participants from our Western Hemisphere partners. I also helped 
build the Masters Degree curriculum in International Security and 
Civil-Military Relations at NPS that has enrolled hundreds of students 
from the region, and addresses issues of defense planning, strategy 
development, and related topics designed to build partner defense 
capacity and collaboration with their U.S. military counterparts. I 
subsequently supervised these curricula as the Dean of the NPS School 
of International Graduate Studies, and have continued to keep up with 
developments in the region at Stanford University.
    Question. What additional actions do you believe you need to take, 
if any, to prepare yourself to fulfill these duties?
    Answer. If confirmed, I look forward to working closely with the 
members of this committee in carrying out the duties and functions of 
the Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs.
             combating terrorism roles and responsibilities
    Question. The Department of Defense's combating terrorism 
activities are currently divided into four categories: Antiterrorism/
Force Protection, Counterterrorism, Terrorism Consequence Management, 
and Intelligence. Section 902 of the National Defense Authorization Act 
for Fiscal Year 2003, which established the position of Assistant 
Secretary of Defense for Homeland Defense, also transferred the 
responsibility for the overall direction and supervision for policy, 
program planning and execution, and allocation of resources for the 
Department's combating terrorism activities to the Under Secretary of 
Defense for Policy.
    Please specify what activities within each of the four combating 
terrorism categories will be under the jurisdiction of the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs.
    Answer. If confirmed, I will work closely with the Assistant 
Secretary of Defense for Special Operations/Low Intensity Conflict and 
Interdependent Capabilities, the Assistant Secretary of Defense for 
Global Strategic Affairs, and the Under Secretary of Defense for 
Intelligence to achieve the Secretary of Defense's objectives with 
respect to proper alignment of DOD combating terrorism activities. 
After review and consultation with these individuals, I will make any 
recommendations with respect to the overall direction and supervision 
for policy, program planning and execution, and allocation of resources 
for the Department's role in support of combating terrorism activities 
to the Under Secretary of Defense for Policy.
    Question. What DOD official or officials will be responsible for 
DOD combating terrorism activities not under your jurisdiction?
    Answer. See my previous answer.
    Question. What steps will you take to ensure that the Department's 
efforts are focused and well coordinated in this critical area of 
homeland defense?
    Answer. If confirmed, I will work closely with the Assistant 
Secretary of Defense for Special Operations/Low Intensity Conflict and 
Interdependent Capabilities, the Assistant Secretary of Defense for 
Global Strategic Affairs, and the Under Secretary of Defense for 
Intelligence to achieve the Secretary of Defense's objectives in this 
critical area of homeland defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the ASD for Homeland Defense and Americas' Security Affairs?
    Answer. If confirmed, my office would likely play an important role 
within the Department and the interagency process in developing policy 
for a number of key issues, including among others: preventing 
terrorist attacks against the United States, particularly attacks using 
weapons of mass destructions; planning and preparing for the response 
to catastrophic incidents in the United States; combating terrorism; 
adapting the U.S. military for 21st century challenges to the homeland; 
and strengthening our alliances with key partners and allies in the 
Western Hemisphere. If confirmed, I look forward to ensuring that the 
Under Secretary of Defense for Policy and the Secretary of Defense 
receive the best possible policy input on these vital questions.
    Question. If you are confirmed, what priorities and plans do you 
have for addressing these challenges?
    Answer. If confirmed, I expect to provide advice and counsel to the 
Under Secretary of Defense for Policy and aid in the development of 
policy advice to the Secretary of Defense. In this, I would give 
priority to the major challenges identified by the Secretary of Defense 
and the Under Secretary of Defense for Policy, and to strengthening the 
organizational capacity of the Office of the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs to address 
them. I would also pay close attention to the development and 
maintenance of effective working relationships with both military and 
civilian counterparts in the Department and the interagency. I would 
also participate in a number of processes, including the Quadrennial 
Defense Review and the PPBE process, which will provide an opportunity 
to assess these challenges and develop policy, plans, and investments 
to address them.
    Question. What do you anticipate will be the most serious problems 
in the performance of the responsibilities of the ASD for Homeland 
Defense and Americas' Security Affairs?
    Answer. If confirmed, one of my greatest imperatives will be to 
establish close, cooperative relations with DOD's Federal, State, 
local, and Western Hemisphere partners. I believe that the serious 
challenges to the security of the United States and that of its friends 
and allies in the Western Hemisphere cannot be solved by any single 
agency or country, but instead must be faced together cooperating 
towards common goals.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I look forward to working closely with the 
Under Secretary of Defense for Policy in establishing appropriate 
priorities, actions, and timelines to address these problems.
       difference between homeland defense and homeland security
    Question. The Department of Defense is responsible for homeland 
defense, and the Department of Homeland Security is responsible for 
Homeland security.
    Please describe your understanding of the differences between the 
two different missions.
    Answer. The Department of Defense and Department of Homeland 
Security have complementary and mutually supporting roles, missions, 
and responsibilities. The Department of Defense is responsible for the 
military defense of the United States from attack upon its territory at 
home and securing its interests abroad; military missions aim to deter, 
defend against, and defeat those who threaten the United States. For 
its part, the Department of Homeland Security is responsible for 
leading the Nation's efforts to prepare for, protect against, respond 
to, recover from, and mitigate against the risk of natural disasters, 
acts of terrorism, and other manmade disasters; to secure the Nation's 
borders, ports, and airports; and to ensure that the Federal Government 
works with states, localities, and the private sector as a true partner 
in prevention, mitigation, and response. As necessary, and consistent 
with the law, the Department of Defense provides support to the 
Department of Homeland Security in the execution of its missions.
    Question. Do you agree that the Department of Defense should not be 
responsible for Homeland security, but may serve in a supporting role 
to assist civilian Federal agencies as directed by the President or 
Secretary of Defense?
    Answer. Congress, in the Homeland Security Act of 2002, assigned to 
the Department of Homeland Security the responsibility for preventing 
terrorist attacks within the United States; reducing the vulnerability 
of the United States to terrorism; and minimizing the damage, and 
assisting in the recovery from terrorist attacks that occur within the 
United States. As necessary, and consistent with the law, the 
Department of Defense provides support to the Department of Homeland 
Security in the execution of its missions.
                         installation security
    Question. The security of U.S. military installations--both at home 
and abroad--has been a longstanding priority for the Senate Armed 
Services Committee.
    If confirmed, what would be your priorities for ensuring an 
adequate level of security for military installations in the United 
States?
    Answer. If confirmed, I would work to ensure the effectiveness of 
Department of Defense antiterrorism and protection policies in 
detecting, deterring, and responding to threats directed at Department 
of Defense installations, facilities, and personnel, including their 
families. I would also work to ensure that adequate resources are 
provided to execute these policies and that the Department of Defense 
is working closely with its Federal, State, local, and tribal partners 
in establishing a mutually supportive protective posture inside and 
outside Department of Defense installations and facilities.
                defense critical infrastructure program
    Question. The ASD for Homeland Defense and Americas' Security 
Affairs is responsible for overseeing DOD efforts and programs to 
protect defense critical infrastructure.
    If confirmed, what plans, approaches, and priorities would you have 
for ensuring that the Defense Critical Infrastructure Program is 
functioning properly?
    Answer. While I am familiar with the importance of the Defense 
Critical Infrastructure Program, I have not had the opportunity to 
review the plans, approaches, and priorities for ensuring that the 
program is functioning properly. If confirmed, I would review such 
plans, approaches, and priorities, and make recommendations to the 
Under Secretary of Defense for Policy to ensure that adequate measures 
are taken for the protection of defense critical infrastructure against 
current and emerging threats.
                vulnerability of defense energy supplies
    Question. In February 2008, the Defense Science Board Task Force on 
DOD Energy Strategy issued a report that considered, among other 
issues, the vulnerability of assured energy supply to military 
installations, including those installations that host task critical 
assets for high priority defense missions. The Task Force concluded 
that relying on commercial electrical power is not adequate for the 
Department to assure adequate power to its critical missions, and that 
``critical national security and Homeland defense missions are at an 
unacceptably high risk of extended outage from failure of the grid and 
other critical national infrastructure.''
    If confirmed, will you review the Task Force report and examine the 
related issues of the vulnerability of the commercial power grid to 
prolonged outages, and options and alternatives for assuring adequate 
power to Department of Defense critical missions at installations in 
the United States?
    Answer. If confirmed, I will review the Task Force report and 
examine the related issues. I will make necessary recommendations to 
the Under Secretary of Defense for Policy.
            weapons of mass destruction civil support teams
    Question. There are now 54 National Guard Weapons of Mass 
Destruction Civil Support Teams (WMD-CSTs) established, at least one in 
each State and territory.
    If confirmed, what would be your role with regard to the oversight, 
training, and employment of the WMD-CSTs?
    Answer. If confirmed, I would expect to be responsible for 
coordinating with other DOD Components regarding the readiness posture 
of CBRNE forces, including the WMD-CSTs.
            cberne enhanced response force packages (cerfps)
    Question. The National Guard Bureau has established 17 Chemical, 
Biological, Radiological, Nuclear, and high-yield Explosive (CBRNE) 
Enhanced Response Force Packages (CERFPs).
    Please provide your understanding of the role and capabilities of 
these units.
    Answer. It is my understanding that the National Guard CERFPs, in 
conjunction with WMD-CSTs, assist local, State, and Federal authorities 
in CBRNE consequence management. If confirmed, I intend to improve my 
understanding of these roles and capabilities and if necessary make 
recommendations as appropriate to the Under Secretary of Defense for 
Policy.
    Question. If confirmed, what would be your role with regard to the 
oversight, training, and employment of the CERFPs?
    Answer. If confirmed, I would expect to be responsible for 
coordinating with other DOD Components regarding the readiness posture 
of CBRNE forces, including the CERFPs.
              cbrne consequence management response forces
    Question. The Secretary of Defense has issued guidance to establish 
three CBRNE Consequence Management Response Forces (CCMRFs) by October 
1, 2010.
    Please provide your understanding of the roles and capabilities of 
the CCMRFs.
    Answer. It is my understanding that the CCMRFs are trained, 
equipped, and prepared to assist (upon request) Federal, State, and 
local civil authorities in the response to a CBRNE incident within the 
United States. If confirmed, I intend to improve my understanding of 
these roles and capabilities and if necessary make recommendations as 
appropriate to the Under Secretary of Defense for Policy.
    Question. Do you have any concerns about the ability of the 
Department to implement the Secretary's direction to create the three 
CCMRFs on the prescribed schedule?
    Answer. I do not have a detailed understanding of current 
implementation plans. If confirmed, I would monitor implementation of 
the Secretary's direction closely.
    Question. If confirmed, what would be your role with regard to the 
oversight, training, and employment of the CCMRFs?
    Answer. If confirmed, I would expect to be responsible for 
coordinating with other DOD Components regarding the readiness posture 
of CBRNE forces, including the CCMRFs.
    Question. Concerns have been raised about CCMRFs having a possible 
peacetime role that is inconsistent with other laws (such as Posse 
Comitatus).
    Do you agree that the purpose of CCMRFs is as a DOD support element 
for CBRNE incidents, and not for peacetime or civil disturbance 
missions?
    Answer. It is my understanding that the purpose of the CCMRFs is to 
assist (upon request) Federal, State, and local civil authorities in 
the response to a CBRNE incident within the United States. It is also 
my understanding that the CCMRFs' mission set does not include domestic 
law enforcement, crowd control, peacekeeping activities, assistance to 
civil authorities in instances of civil unrest, or activities to 
suppress civil disturbances, insurrections, or rebellions.
             dod cbrne consequence management capabilities
    Question. Section 1082 of the National Defense Authorization Act 
for Fiscal Year 2008 (Public Law 110-181) required the Department to 
establish an advisory panel to review the Department's capabilities to 
provide defense support of civil authorities in the event of a 
chemical, biological, radiological, nuclear, or high-yield explosives 
(CBRNE) incident, and to recommend any changes it believes necessary. 
The advisory panel has not yet been finalized or had its first meeting, 
and it would likely take a year after the first meeting before it 
reports its recommendations.
    If confirmed, will you take the steps necessary to ensure that the 
provisions of section 1082 are implemented, and that the advisory panel 
undertakes its mission?
    Answer. Yes.
                   mexico--violence from drug cartels
    Question. Mexico has been wracked by high levels of violence 
related to drug trafficking and drug cartels fighting among themselves 
and against the Mexican authorities. This violence threatens to spill 
over the southwestern border of the United States, and has led the 
border Governors to call for increased National Guard troops along the 
border. The ASD for Homeland Defense and Americas' Security Affairs has 
responsibility for oversight of U.S.-Mexican military relations and 
security cooperation between the two militaries.
    What do you believe is the correct approach for the Department of 
Defense in working with Mexico to help mitigate this drug-related 
violence?
    Answer. I believe that preventing and responding to drug-related 
violence, in Mexico as in the United States, is primarily the 
responsibility of civilian law enforcement agencies. If confirmed, I 
look forward to working with my counterparts at the Department of State 
and other relevant Federal agencies to strengthen programs to support 
efforts to mitigate this drug-related violence, and make appropriate 
recommendations on the DOD role to the Under Secretary of Defense for 
Policy.
    Question. What do you believe is the proper role for other civilian 
agencies in protecting the U.S. border against drug-related violence 
from Mexico, and what role do you believe the Department of Defense 
should have, if any?
    Answer. Protecting the U.S. border against drug-related violence 
from Mexico is primarily the responsibility of Federal, State, and 
local law enforcement agencies. DOD's role in the execution of this 
responsibility is to provide appropriate lawful support when requested, 
and subsequently approved, by the President or the Secretary of 
Defense.
                           pandemic influenza
    Question. The United States is currently facing a pandemic 
influenza virus that appears to have originated in Mexico. The 
Department of Defense has had a very limited role in this situation, 
since other civilian agencies--particularly the Department of Homeland 
Security (DHS) and the Department of Health and Human Services (DHHS)--
have the primary responsibilities for such a public health challenge.
    Do you agree that DHS and DHHS should have the primary 
responsibilities for such a situation?
    Answer. Yes.
    Question. What role do you see for the Department of Defense in 
responding to a pandemic influenza situation?
    Answer. I believe DOD has a two-fold role. First, DOD should be 
responsible for protecting the health of the Armed Forces and ensuring 
their preparedness to execute military missions to protect the United 
States and its interests. Second, DOD should be a supporting partner as 
required in the implementation of U.S. Government plans concerning 
influenza
          national guard and reserve role in homeland defense
    Question. There is currently considerable debate about the role the 
National Guard should play in defending the Homeland and in providing 
civil support assistance in Homeland security missions. The Commission 
on the National Guard and the Reserves recommended that the National 
Guard and Reserves be given ``the lead role in and form the backbone of 
DOD operations in the homeland. Furthermore, DOD should assign the 
National Guard and Reserves homeland defense and civil support as a 
core competency consistent with their warfighting tasks and 
capabilities.''
    What role do you believe that the National Guard and Reserve should 
have in homeland defense, as compared to the Active component?
    Answer. Homeland defense is a Total Force responsibility. If 
confirmed, I will update my understanding of the roles, missions and 
capabilities of the National Guard and the Reserves and will work to 
ensure that they have the equipment, training, and personnel to 
accomplish their missions, both at home and abroad.
    Question. What role do you believe the National Guard and Reserves 
should have in providing civil support assistance to other Federal 
agencies, as compared to the active component?
    Answer. Civil support is a Total Force responsibility. If 
confirmed, I look forward to helping to ensure that the National Guard 
and Reserves are equipped, trained, and prepared to execute vital 
missions in support of civil authorities in the United States.
                relationship with u.s. northern command
    Question. U.S. Northern Command was established in October 2002 
with the mission of conducting operations to deter, prevent, and defeat 
threats and aggression aimed at the United States, its territories, and 
interests within the Command's assigned area of responsibility; and, as 
directed by the President or Secretary of Defense, to provide military 
assistance to civil authorities, including consequence management 
operations.
    If confirmed, how do you anticipate you would coordinate roles and 
responsibilities with the Commander of U.S. Northern Command?
    Answer. If confirmed, I would expect to be responsible for working 
closely with the Commander of U.S. Northern Command to support the 
efforts of the Secretary of Defense, particularly in the areas of 
Homeland Defense, Defense Support of Civil Authorities, and Western 
Hemisphere strategy and policy, contingency planning and policy 
oversight of operations.
    Question. How do you anticipate that the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs and the 
Commander of U.S. Northern Command will coordinate with other Federal 
and State entities in planning for response to catastrophic events that 
might require Defense Department support?
    Answer. If confirmed, I look forward to working closely with the 
Commander of U.S. Northern Command to ensure that Defense Department 
support to other Federal and state entities in response to catastrophic 
events, if required, is provided in a timely and coordinated fashion.
         relationship with the department of homeland security
    Question. The establishment of the Department of Homeland Security 
was one of the U.S. Government's largest cabinet-level reorganizations 
in the last 50 years. Despite this reorganization, the Department of 
Defense will continue to play an important role in providing Defense 
Support to Civil Authorities for Federal response to certain domestic 
incidents, as directed by the President or the Secretary of Defense.
    If confirmed, what role do you expect to play in the coordination 
of DOD activities with the Department of Homeland Security and its 
component elements?
    Answer. If confirmed, I would be responsible for coordinating the 
integration of homeland defense policies, programs and activities with 
DHS, as well as coordinating on the development, validation, and 
execution of DOD support to civil authorities such as DHS.
  use of active duty and reserve personnel for homeland defense/posse 
                               comitatus
    Question. The Department of Defense has a mission to provide 
support to other Federal agencies in the event of a domestic incident 
that requires a Federal response, if directed by the President or the 
Secretary of Defense. The Posse Comitatus Act prohibits military 
personnel in a Federal status from engaging directly in domestic law 
enforcement ``except in cases and under circumstances expressly 
authorized by the Constitution or Act of Congress.'' Use of National 
Guard personnel in a state status is not prohibited by this act, but 
the use of military personnel, including the National Guard in a 
Federal status, is prohibited.
    What is your understanding of the legal issues and authority 
associated with using National Guard and Reserve personnel in security 
roles within the United States?
    Answer. Under the authority of State Governors, in State Active 
Duty status or duty status under title 32, U.S.C., the National Guard 
is not subject to the restrictions imposed by the Posse Comitatus Act. 
However, when ordered to Active Duty, the National Guard and the 
Federal Reserve components are subject to the restrictions imposed by 
the Posse Comitatus Act with certain exceptions specifically authorized 
by Congress.
    Question. In your opinion, does the Posse Comitatus Act (title 18 
U.S.C. Sec. 1385) or chapter 18 of title 10, U.S.C. (which regulates 
the use of the Armed Forces in support of civilian law enforcement and 
related activities) require amendment to deal with the present homeland 
security situation?
    Answer. If confirmed, I would carefully review this issue and if 
necessary make appropriate recommendations to the Under Secretary of 
Defense for Policy.
    Question. Under what circumstances do you believe that it is 
appropriate for the Department of Defense to provide assistance to law 
enforcement authorities in response to a domestic terrorist event? What 
about a non-terrorist event?
    Answer. I do not yet have a detailed understanding of the legal and 
policy issues at stake on this issue.
    Question. If confirmed, what role do you expect to play in making 
such determinations and making such assistance available?
    Answer. If confirmed, I would be responsible for advising, through 
the Under Secretary of Defense for Policy, the Secretary of Defense on 
requests for DOD assistance to law enforcement agencies.
                               modularity
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a large division-based to a brigade-
based structure. The new modular brigade combat team is supposed to 
have an increased capability to operate independently based upon 
increased and embedded combat support capabilities such as military 
intelligence, reconnaissance, and logistics. Although somewhat smaller 
in size, the new modular brigades are supposed to be just as or more 
capable of full spectrum operations than the divisional brigades they 
replace. Additionally, under the modular construct, combat, support, 
and service support brigades would transform to standardized designs 
that would be self contained with organic support and service support 
units, full spectrum capable, networked, and compatible with any 
division headquarters. This, the Army argues, provides increased 
strategic flexibility and force availability. Modular units would share 
common structure and equipment to allow complete interchangeability 
across the spectrum of conflict. The plan also provides for the 
transformation of the Total Army--Active and Reserve components--to 
modular design and equipment.
    What is your understanding and assessment of the Army's modular 
design and implementation of this transformation strategy as it relates 
to the Department's homeland defense and civil support missions?
    Answer. I have not had the opportunity to become familiar with the 
Army's modular design and its implementation. If confirmed, I would 
review this program and its implementation as it relates to DOD's 
homeland defense and civil support missions and if necessary make any 
necessary recommendations to the Under Secretary of Defense for Policy.
    Question. In your view, what are the greatest challenges, if any, 
for Department's homeland defense and civil support missions related to 
the Army's transformation to the modular design?
    Answer. See my previous answer.
    Question. If confirmed, what actions or changes would you propose, 
if any, relative to the Army's modular transformation strategy?
    Answer. See my previous answer.
                 army force generation model (arforgen)
    Question. The Army relies on a force generation model (ARFORGEN) in 
which units are manned, equipped, and trained to levels of low to 
higher readiness over time as they cycle through ``reset and train,'' 
``ready,'' and ``available for deployment'' force pools. This approach 
will also apply to the Army's Reserve components.
    What is your understanding and assessment of the Army's force 
generation model and its implications for the Department's readiness 
for homeland defense and civil support missions?
    Answer. While I am generally not familiar with the ARFORGEN 
concept, I have not had the opportunity to review in detail the 
ARFORGEN implementation plan. If confirmed, I would review the force 
generation models used by all of the Services and their implementation 
as they relate to DOD's homeland defense and civil support missions and 
make any necessary recommendations to the Under Secretary of Defense 
for Policy.
    Question. In your view, what are the greatest resource, readiness, 
and operational challenges, if any, with respect to ARFORGEN model?
    Answer. See my previous answer.
    Question. If confirmed, what actions or changes would you propose, 
if any, to the design, implementation, or management of ARFORGEN?
    Answer. See my previous answer.
coordination of expertise between the departments of homeland security 
                               and energy
    Question. The personnel at the Department of Energy's (DOE) 
national laboratories have expertise that may be useful to the 
Department of Homeland Security and to the Department of Defense in the 
execution of their respective homeland security and homeland defense 
missions.
    How do you believe the Department of Defense can help ensure 
coordination and communication with the appropriate experts of the 
national labs to help respond quickly in the event of a national 
incident or emergency that would require their assistance?
    Answer. While I understand the value of the expertise inherent in 
the national laboratories, I have not had the opportunity to become 
familiar with the full spectrum of capabilities offered by the national 
laboratories. If confirmed, I look forward to learning more about these 
capabilities with respect to incident emergency management and making 
any necessary recommendations to the Under Secretary of Defense for 
Policy and the Department of Homeland Security.
         western hemisphere institute for security cooperation
    Question. Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities and capacity 
building efforts through the education and training of students in the 
Western Hemisphere from Canada to Chile.
    What is your view of WHINSEC and its mandate?
    Answer. I agree with the sense of Congress provided in section 1257 
of the National Defense Authorization Act for Fiscal Year 2008: WHINSEC 
``is an invaluable education and training facility which the Department 
of Defense should continue to utilize in order to help foster a spirit 
of partnership and interoperability among the United States military 
and the militaries of participating nations.'' The training and 
education provided by WHINSEC are absolutely vital to advancing 
security cooperation in the Western Hemisphere. These missions promote 
national security interests and support the strategic objective of 
building lasting partnerships that will ensure security, enhance 
stability, and enable prosperity throughout the Americas. Should I be 
confirmed, I welcome detailed briefings on WHINSEC and look forward to 
working with the committee and State Department to build lasting 
partnerships throughout the region.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. See the answer above.
                     role of u.s. southern command
    Question. If confirmed, you will be responsible for overseeing 
policy for defense security cooperation, the Department's 
counternarcotics efforts in the source nations and transit zone, 
security of the Panama Canal, implementation of security assistance 
programs, and development of democratic values within the military 
organizations of the region. To complicate matters, you will face the 
challenge of pursuing these missions at a time when there appears to be 
movement away from democracy in some nations, and increasing 
instability in other nations.
    If confirmed, what will be your highest priorities for Western 
hemisphere security?
    Answer. If confirmed, I would recommend to the Under Secretary of 
Defense for Policy that our priorities for Western Hemisphere security 
should be to strive to achieve the following goals:

        <bullet> The U.S. and its partners become more secure from 
        existing and potential threats;
        <bullet> Partners gain an increasing capacity to address 
        security challenges within their territories;
        <bullet> Partners are better able to help each other solve 
        security challenges; and
        <bullet> Partners have the leadership capacity to promote 
        security cooperation in the Americas and beyond.

    Question. What actions would you propose to counter the growing 
threat to democracy in the region?
    Answer. I am concerned by recent trends in some parts of the 
Hemisphere that seem to be weakening the health of democratic 
institutions. DOD can and should play a supporting role to U.S. 
Government efforts to keep democracy strong in the Hemisphere. DOD can 
do this by supporting friends and allies, denying opportunities to 
hostile influences, respecting differences of opinion, being good 
listeners, and maximizing interaction. If confirmed, I look forward to 
furthering this support role. Education exchanges also allow DOD to 
help reinforce the ideals of democracy, civilian authority, and a well-
informed citizenry in our contacts with partners in the Hemisphere.
    Question. What is your assessment of the strengths and weaknesses 
of military-to-military exchange programs and contacts in the U.S. 
Southern Command area of responsibility?
    Answer. My view is that the U.S. Government derives great benefit 
from our military-to-military exchange programs and conducts them with 
most countries in the Hemisphere. The United States Southern Command 
has performed this mission magnificently. U.S. relations with countries 
in the Americas are strengthened significantly thanks to their efforts. 
If there is a weakness, it may be that resources available to conduct 
these activities are limited, and thus desires for engagement exceed 
the amount of funding and personnel available to do all that the U.S. 
and its partners would like to do together. If confirmed, I look 
forward to supporting this program and ensuring that sufficient 
resources are made available.
                        counternarcotics efforts
    Question. Each year the Department of Defense spends several 
hundred million dollars to counter the flow of illegal drugs into the 
United States, yet the availability of drugs on the street has not been 
significantly reduced, and some countries continue to face internal 
security challenges in responding to this threat. This has led many to 
question the effectiveness and focus of our counternarcotics programs.
    How would you recommend that the success of the Department's 
counternarcotics programs be measured?
    Answer. While I believe that metrics to assess this program are 
important, I have not had the opportunity to become familiar with the 
details of DOD's counternarcotics programs. If confirmed, I will work 
closely with the Assistant Secretary of Defense for Special Operations/
Low Intensity Conflict and Interdependent Capabilities, who I 
understand is OSD's lead office for counternarcotics, to review DOD's 
counternarcotics programs in the United States and the Western 
Hemisphere.
    Question. Do you believe that the current programs that the 
Department is pursuing are the most effective for the region, or should 
the Department's efforts focus elsewhere?
    Answer. See my previous answer.
    Question. If confirmed, where would you rank counternarcotics in 
terms of its contribution to our national security and the ability of 
the Department of Defense to make a meaningful contribution, as 
compared to other missions for which you would be responsible?
    Answer. The most recent National Defense Strategy states that the 
core responsibility of the Department of Defense is to defend the 
United States from attack upon its territory at home and to secure its 
interests abroad. Nonetheless, the nexus between narcotics and 
terrorism is a serious challenge to the United States and its interests 
abroad. Countering this challenge requires an integrated interagency 
approach, of which DOD is an integral part. DOD brings important tools 
and global capabilities to interagency efforts to counter networks that 
support both terrorist and international criminal organizations. If 
confirmed, I would work closely with the Assistant Secretary of Defense 
for Special Operations/Low Intensity Conflict and Interdependent 
Capabilities to review the DOD role in combating this nexus in the 
United States and Western Hemisphere and to coordinate with the other 
elements of the U.S. Government to determine the best way ahead.
          terrorism threat from caribbean and central america
    Question. In your view, what is the extent of the current threat to 
the homeland of terrorist extremists from the Caribbean and Central 
America?
    Answer. The threat to the United States from the Caribbean basin 
and Central America stems primarily from the extensive and well-
developed illicit trafficking routes used by criminals and drug 
trafficking organizations. If confirmed, I will pay particular 
attention to other emerging threats.
    Question. How would you broadly characterize that threat--low, 
medium, or high?
    Answer. Given the aforementioned illicit trafficking routes used by 
criminals and drug trafficking organizations and the increasing nexus 
between such trafficking and terrorism, I would broadly characterize 
the threat level as medium. It would be in the best interest of the 
U.S. for our Government to work closely with our Caribbean and Central 
American partners to reduce the threats of drug trafficking and 
terrorism in the Western Hemisphere. If confirmed, I look forward to 
closely reviewing this area with the Intelligence Community and 
developing a more refined assessment of the threat level.
                                 haiti
    Question. The U.N. Security Council voted unanimously on October 
14, 2008, to extend the U.N. peacekeeping mission in Haiti for 1 year. 
Haiti continues to experience turmoil and instability.
    How would you characterize the current military, economic, and 
political situation in Haiti, including the role of the U.N. 
peacekeeping force and the U.S. military?
    Answer. As a direct result of U.N. peace operations, Haiti is more 
secure and stable than 5 years ago. Many countries in the Hemisphere, 
such as Brazil, Argentina, Chile, Uruguay, Peru and Guatemala, 
contribute personnel to these peace operations and are directly 
responsible for many of the successes. However, security continues to 
be fragile as a result of weak institutions, underlying poverty, and a 
history of political instability in Haiti. Significant improvements may 
be hard to see within the next 6 months. In the longer term, economic 
and political progress will be necessary before lasting stability can 
be assured. One of the most important goals should be to assist the 
Haitian police in assuming increased responsibility for security, 
thereby allowing this peace operation to downsize its military 
component, and ultimately, its civilian police component as well.
    Question. How do you assess the security situation in Haiti now and 
what is your estimate of how the situation will look in 6 months?
    Answer. See my previous answer.
    Question. What conditions or indicators do you consider important 
in determining whether there will be another wave of Haitian 
emigration?
    Answer. Political instability, a natural disaster such as a 
hurricane, or a new economic crisis could trigger another wave of 
Haitian migration. Perceptions of an impending change to U.S. 
immigration policy could also lead to an increase in Haitian migration.
    Question. In your view, what is the cost and effectiveness of U.S. 
assistance to Haiti?
    Answer. It appears to me that U.S. assistance, coupled with the 
ongoing U.N. peace operation, has contributed to making Haiti more 
secure and stable over the last 5 years. As far as the cost of that 
assistance, I would defer to the State Department on the question of 
how much U.S. foreign assistance funds have been expended on Haiti. The 
State Department is the lead Federal department for U.S. foreign 
assistance; DOD plays an important but supporting role.
                                  cuba
    Question. What is your opinion about the need for, and pros and 
cons of, military-to-military contact with Cuba?
    Answer. Currently, my understanding is that the U.S. military 
conducts regular ``fence-line'' talks with the Cuban military at the 
Guantanamo Bay Naval Base, to help ensure that there are no 
misunderstandings between both sides. If confirmed, I will closely 
examine whether additional military-to-military contact can play a 
helpful role in supporting the President's policy of promoting 
democracy and human rights in Cuba.
    Question. What is your view of the need for review, and potentially 
revision, of U.S. policies regarding Cuba?
    Answer. I understand that President Obama has been reviewing U.S. 
policies toward Cuba, and has already taken important steps to revise 
some policies. If confirmed, I look forward to joining in that review. 
As the President has said, ``Cuba needs to take steps to revise its 
policies.''
                                bolivia
    Question. In the past few years, Bolivia has experienced extreme 
political unrest and, lately, President Morales has taken some 
positions that could complicate U.S. relations with Bolivia.
    How do you assess the situation in Bolivia and, if confirmed, how 
would you seek to accomplish the goals of combating drug trafficking 
and enhancing military engagement goals?
    Answer. The situation in Bolivia is of great concern. President Evo 
Morales expelled the U.S. Ambassador, all the officers of the U.S. Drug 
Enforcement Agency, and another U.S. diplomat based on unsubstantiated, 
incorrect allegations. He has also accused the U.S. Government of 
plotting his assassination and conspiring with the political 
opposition. It is my hope that the United States can reestablish 
cooperation with the Bolivian Government to combat drug trafficking, 
which threatens both our countries, and that the United States can work 
positively with Bolivia's military. Ultimately, the choice is up to 
President Morales. If confirmed, I will support efforts by the 
Department of Defense to work with countries in the common fight 
against international drug trafficking and other transnational threats.
                               venezuela
    Question. U.S.-Venezuelan relations have continued to be strained 
as President Chavez continues to propagate anti-American rhetoric to 
anyone that will listen, import increasing amounts of military 
armament, politicize the Venezuelan military forces, and export his 
brand of populism to the region.
    What is your view of President Chavez's intentions in the region?
    Answer. I believe that President Chavez seeks to be a regional 
player and expand his sphere of influence.
    Question. How would you characterize the current state of military-
to-military relations between the United States and Venezuela?
    Answer. It is my understanding that there are minimal military-to-
military relations with Venezuela. This has not always been the case. 
In the past, the United States and Venezuela enjoyed a close military-
to-military relationship. It would be good for each nation's military 
to have closer contact once again, but that would take a change in the 
current policy of the Venezuelan Government.
    Question. What role do you see President Chavez playing in national 
elections throughout the Western Hemisphere area of operations?
    Answer. I believe that is a question that the Department of State 
is best qualified to address.
    Question. How would you assess Venezuelan relations with Cuba and 
China vis-a-vis the national security interests of the United States?
    Answer. In my view, Venezuela and Cuba have a close relationship. 
Venezuela and China have entered into economic cooperation agreements 
that have led to a practical relationship. Venezuela's relationships 
with Cuba and with China do not appear to pose a significant threat to 
U.S. national security interests. If confirmed, I look forward to 
carefully reviewing these complex relationships and the potential 
threats that Cuba, China, and other countries may pose to national 
security interests.
                                 panama
    Question. How do you assess the current political and economic 
situation in Panama?
    Answer. Panama held elections on May 3, 2009 and elected Ricardo 
Martinelli as its next president. It is important for the United States 
to continue working closely with Panama, which is an important 
political and economic partner to the United States. I would defer to 
the State Department to offer a more detailed assessment of Panama's 
political and economic situation.
    Question. To what extent do you assess that the Panamanian 
Government attempts to interdict the drug flow out of South America 
through Panama?
    Answer. My understanding is that Panama, which has suffered from 
increased levels of violence tied to narcotics trafficking, has 
recently approached the United States in an effort to expand and 
improve its ability to interdict drug trafficking originating in South 
America. If confirmed, I will support cooperation to assist Panama in 
achieving that goal.
    Question. What is your assessment of how Panama is protecting and 
maintaining the Panama Canal?
    Answer. My understanding is that Panama is doing a good job of 
protecting and maintaining the Canal and investing resources to make 
necessary infrastructure improvements. The Canal is vital to U.S. 
commercial interests. Regarding protection, I understand that the Canal 
Authority maintains a highly professional security force that is well 
trained, funded, and equipped.
    Question. How vulnerable is the Panama Canal to attack by 
terrorists, and what would be the consequences of an attack to U.S. 
national security interests?
    Answer. My understanding is that although the Canal is well 
protected, Panama recognizes the challenge in safeguarding a large 
infrastructure target such as the Canal. Panama and U.S. Southern 
Command co-sponsor PANAMAX, a large-scale annual multinational exercise 
focusing on protection of the Canal. The consequences to the U.S. 
economy from a terrorist attack on the Canal, depending on the severity 
and time needed for repairs, could range from mild to serious. Shutting 
down the Canal, even for a few weeks, would raise the price of goods, 
especially imports from Asia to the U.S. east coast.
                      forward operating locations
    Question. One of the elements of the counternarcotics strategy in 
the Western Hemisphere is the establishment of forward operating 
locations (FOLs) in the source and transit zone. There is some concern 
that the Department has not deployed sufficient aircraft and other 
resources to these FOLs to justify sustainment costs and continued 
improvements. There is also concern that after U.S. investment of 
several million dollars in these facilities, the host nations will 
restrict our use of these facilities. The Department is also losing one 
of its strategic locations (i.e. Manta, Ecuador) on the Pacific coast 
later this year.
    In your view, what is the role that these FOLs play in the 
Department's counterdrug efforts?
    Answer. My understanding is that FOLs play a significant role in 
the Department's counternarcotics mission. These FOLs support DOD 
detection and monitoring flights, which are more effective due to their 
proximity to the area of interest. If confirmed, I will continue to 
support FOLs in strategic locations.
    Question. In your view, does current use continue to justify the 
costs of sustaining these locations?
    Answer. It appears to me that the counternarcotics FOLs have more 
than justified their initial cost and annual upkeep. Without these 
FOLs, DOD would have to launch surveillance flights from U.S. soil, 
which would reduce U.S. response capability.
                                colombia
    Question. Under President Uribe's leadership, Colombia has improved 
its military performance in pursuing the paramilitary groups and their 
associated drug networks, and demonstrated an increased willingness and 
commitment to address and defeat the insurgency.
    Please outline your views regarding the current situation in 
Colombia focusing upon: (1) the current military and political 
situation in Colombia; (2) the ability of the Colombian military to 
regain control of its territory; and (3) ongoing DOD programs, 
including the effects of the caps on U.S. troops and contractor 
personnel.
    Answer. (1) In my view, Colombia is not the same country it was 10 
years ago. With the support of Congress, the U.S., in partnership with 
President Uribe, his administration, and Colombians at all levels, has 
made considerable progress against the drug lords and terrorist 
organizations. In Colombia, problems of every variety are linked to 
drug trafficking and terrorism, including deep-seated political 
conflicts, social exclusion, economic inequality, endemic violence, and 
corruption. Through fiscal year 2009, United States assistance to the 
Government of Colombia has helped achieve dramatic changes in 
Colombia's political and military situation. Nevertheless, I believe 
that to secure the progress Colombia has made will require sustained 
commitment from the United States and the international community.
    (2) Since 2002, President Alvaro Uribe has provided increased 
resources to the military for the implementation of his ``Democratic 
Security'' strategy, and increased their capacity to directly confront 
illegal armed groups and protect the general public. Since then, with 
U.S. support, the Colombian military has grown significantly, and is 
now more capable of providing the security needed to protect Colombians 
and control its territory. The Colombian operation that rescued 15 
high-profile hostages, including three Americans, on July 2, 2008, was 
a spectacular demonstration of the improving competence of the 
Colombian military.
    (3) Ongoing DOD Programs. Current U.S. security assistance provides 
training, equipment, planning assistance, intelligence and funding for 
Colombian military forces, in the areas of counternarcotics and 
counterterrorism. Specifically, the United States currently supports 
program areas such as: Air, ground and riverine operations to help the 
Colombian Armed Forces defeat illegal armed groups; governance programs 
to strengthen the Government of Colombia's presence in recovered areas; 
joint intelligence and communications programs that support 
coordination, and integration between the military services; and 
institutional transformation initiatives of the Ministry of Defense and 
the Colombian military to help them become more modern, efficient and 
capable institutions.
    I do not believe that the caps on U.S. troops and contractor 
personnel have had a significant impact on our efforts to provide 
support. I should note that the United States provides support and 
training but does not conduct ``military operations'' and that U.S. 
personnel are prohibited from engaging in combat.
    Question. When the United States began providing increased support 
through Plan Colombia for Colombia's efforts to significantly reduce or 
eliminate paramilitary groups and their associated drug networks 
operating in their country, much concern was expressed about human 
rights abuses that the Colombian military forces had committed.
    What is your assessment of the record of the Colombian military 
with regard to respect for human rights over the past 3 years?
    Answer. While challenges remain, the Colombian Ministry of Defense 
and its military are making significant progress on promoting human 
rights, preventing abuses, protecting vulnerable groups, and 
prosecuting perpetrators of abuses; and I believe they are committed to 
doing more. Work remains to be done to ensure no breakdowns in command 
and control occur in the military and that all elements in the 
Colombian military act within the law. If confirmed, I will work to 
ensure that progress continues in this important area.
    Question. What more remains to be done and how would you approach 
the issue of respect for human rights in the Colombian military?
    Answer. We should continue to encourage the transparency and 
determination of the Government of Colombia in confronting this 
situation. An especially positive action that the Colombian MOD has 
taken to ensure human rights compliance is the publication of a Human 
Rights and International Humanitarian Law policy that is being 
implemented to internalize appropriate conduct at all levels of the 
military.
    My own view is that there can be no tolerance for those who commit 
human rights abuses, and those who break the law must be held 
accountable. The United States Government needs to be clear with the 
Government of Colombia that any kind of complicity with drug 
trafficking or illegal armed groups will not be tolerated. The 
Colombian Government and its uniformed services must continue the 
positive steps that have been taken and thoroughly investigate and 
prosecute all such cases in a timely manner. It must be clear that 
failure to do so could jeopardize further U.S. Government funding and 
support.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information in a timely manner.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Mel Martinez
                             latin america
    1. Senator Martinez. Dr. Stockton, when the Office of Western 
Hemisphere Affairs was merged into the Assistant Secretary of Defense 
for Homeland Security, it signaled to Latin America that U.S. interest 
in the region was little more than an adjunct to our own homeland 
security. If confirmed, what steps will you take to ensure that 
priority attention is given to Latin America?
    Dr. Stockton. In my view, working with our Nation's partners in 
Central America, the Caribbean, and South America is a top priority, 
and not simply an adjunct to our own homeland security. If confirmed, I 
hope to signal that view to our friends and allies in Latin America. I 
expect Latin American issues to occupy an important part of my 
portfolio and my attention. To help ensure that this region receives 
sufficient attention, I would direct my staff to increase bilateral and 
multilateral engagements with their foreign counterparts, and would 
support requests from foreign defense officials to meet with senior 
Department of Defense (DOD) officials at home and abroad to discuss the 
full range of common security interests and challenges we share, not 
just those associated with homeland defense. I also would advocate for 
the allocation of sufficient funding and other resources to support 
security cooperation activities with our partners.

    2. Senator Martinez. Dr. Stockton, recognizing that you are still 
getting acquainted with specific U.S. programs in Latin America, what 
are the general principles by which you will make judgments regarding 
ongoing DOD programs?
    Dr. Stockton. I look forward to becoming more acquainted with 
specific U.S. programs in Latin America; however, if confirmed, there 
are certain general principles that I will follow regarding ongoing DOD 
programs. First, it is important to maintain mutually effective defense 
relationships with our allies and friends in the hemisphere. Second, 
DOD programs focused on Central America, South America, and the 
Caribbean must continue to support democracy, human rights, 
cooperation, and the effort to secure the hemisphere from transnational 
threats such as terrorism and illicit trafficking in arms and drugs. I 
will use these general principles in considering the effectiveness of 
existing programs, to identify opportunities for improvement, and to 
make recommendations to the Under Secretary of Defense for Policy, the 
Deputy Secretary of Defense, and the Secretary of Defense.

    3. Senator Martinez. Dr. Stockton, in your view, should there be 
different principles for interaction with the militaries of countries 
whose leaders are openly anti-American, such as exists in Venezuela, 
Bolivia, and Nicaragua?
    Dr. Stockton. I believe that it is in the best interest of the 
United States to strive to maintain positive military-to-military 
relationships with all countries in the Americas, even in cases where 
countries' leaders criticize the United States. Transnational threats 
affect all our countries, and it is important that our militaries be 
able to work together to confront those threats where possible. In 
addition, our contacts with other countries' militaries can serve to 
reinforce the importance of principles such as democratic norms, 
respect for human rights, and the need for Armed Forces to remain 
apolitical and under civilian control. Finally, it is important to 
maintain contacts with foreign nations' militaries to develop 
relationships that may be important in the future, including under 
future governments that may be friendlier to the United States. Of 
course, there may be times when, despite our best efforts, cooperation 
with another country's military is not possible.

                         u.s. southern command
    4. Senator Martinez. Dr. Stockton, in your responses to the advance 
policy questions on the role of U.S. Southern Command, you stated that 
a priority is to ``continue to focus on making the United States and 
its partners more secure from existing and potential threats.'' In your 
view, what are those threats as you currently understand the situation?
    Dr. Stockton. As I currently understand the situation, such threats 
include illicit trafficking in drugs, arms, and persons; money 
laundering; and criminal gangs. I also consider as potential 
vulnerabilities for concern the inability of governments to exercise 
effective sovereignty over their territory and the lack of preparedness 
to respond adequately to natural disasters.

                   military-to-military relationships
    5. Senator Martinez. Dr. Stockton, in your view, what is the role 
of military-to-military relationships with those Latin American 
militaries in countries where governments are closing political space 
and dismantling democratic institutions?
    Dr. Stockton. See the answer to question number 3.

    6. Senator Martinez. Dr. Stockton, what role do you see military 
educational institutions, such as the Western Hemisphere Institute for 
Security Cooperation (WHINSEC) and the Center for Hemispheric Defense 
Studies, having in building military-to-military relationships?
    Dr. Stockton. I believe that educational institutions such as 
WHINSEC and the Center for Hemispheric Defense Studies (CHDS) can play 
a key role in promoting democracy and human rights in the Western 
Hemisphere by providing professional education and training for 
military, civilian, and law enforcement personnel from countries 
throughout the Hemisphere. These institutions promote our Nation's 
national security interests, support our Nation's strategic objective 
of building lasting partnerships, and establish mutual relationships 
and understanding, and, in turn, help ensure security, enhance 
stability, and enable prosperity throughout the Americas. WHINSEC and 
CHDS are dedicated to fostering mutual knowledge, transparency, 
confidence, and cooperation among individual military participants and 
participating nations, and to promoting democratic values, respect for 
human rights, and knowledge and understanding of U.S. customs and 
traditions.

                                  cuba
    7. Senator Martinez. Dr. Stockton, since a central element of U.S. 
policy is to promote democratic institutions and respect for human 
rights, to what extent will the Castro Government's treatment of the 
Cuban people factor into your assessment of any military-to-military 
contacts between U.S. military personnel and members of the Cuban 
military and other elements of that government's repressive apparatus?
    Dr. Stockton. It is my understanding that the U.S. military 
currently conducts regular fence-line talks at the Guantanamo Naval 
Base with Cuban military officials in order to help ensure there are no 
misunderstandings on either side. President Obama has recently taken 
steps to revise U.S. policy toward Cuba, and the United States is 
seeking greater openness and respect for human rights and democratic 
principles from the Cuban Government. In this, the U.S. military can be 
of assistance in reaching out to the Government of Cuba through 
existing diplomatic channels. Also, it is my understanding that the 
Cuban military remains a highly respected institution within Cuba 
because it has not participated in human rights abuses. Accordingly, an 
avenue may be open for the U.S. military to help U.S. diplomatic 
efforts by leveraging common military traditions to open new diplomatic 
outreach opportunities, find common ground on which to pursue 
productive dialogue, and promote respect for human rights.

                                bolivia
    8. Senator Martinez. Dr. Stockton, President Evo Morales has 
repeatedly attempted to mischaracterize the United States, including 
the role of U.S. military and law enforcement personnel in Bolivia, as 
engaging in activities against his government. Should Morales' 
unfounded accusations continue, are you prepared to recommend to the 
Under Secretary of Defense for Policy and, ultimately, the Secretary of 
Defense that all U.S. military contact with Bolivia be suspended?
    Dr. Stockton. Eliminating all U.S. military contact with the 
Bolivian Government is an option that I would not recommend at this 
time. I believe it is important to maintain U.S. military diplomatic 
dialogue with the Bolivian military through our Defense Attache. 
Nonetheless, if confirmed, I will consider all the possibilities and 
make my recommendation on the option that would best advance our 
interests in Bolivia and in South America.

                               venezuela
    9. Senator Martinez. Dr. Stockton, in your responses to the advance 
policy questions, you state the belief that ``President Chavez seeks to 
be a regional player and expand his sphere of influence.'' In such a 
situation, what is your view of the interaction the U.S. military 
should have with the Venezuelan military?
    Dr. Stockton. It is my understanding that currently our military-
to-military relations with Venezuela are minimal, largely due to 
limitations imposed by President Chavez. This has not always been the 
case. In the past, our countries enjoyed a close military-to-military 
relationship. It would be good for our militaries to have closer 
contact once again, but that would take a change in the current policy 
of the Venezuelan government.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                         civil support mission
    10. Senator Collins. Dr. Stockton, last year, the Commission on the 
National Guard and Reserves criticized DOD for not having made civil 
support a primary mission of the Department, stating that this was a 
contributing factor to the Nation being unprepared to respond 
effectively to a catastrophic incident. While I do not agree that the 
civil support mission should be of the same priority as the warfighting 
mission of the Department, this is clearly an important responsibility. 
As Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs, how will you ensure that the Department's civil 
support mission is suitably prioritized?
    Dr. Stockton. Both the 2007 National Strategy for Homeland Security 
and the 2008 National Defense Strategy recognize that the core 
responsibility of the Defense Department is to defend the homeland in 
depth, and both documents reinforce the Department's responsibility to 
maintain and enhance its capacity to support civil authorities in 
preventing terrorist attacks and responding to catastrophic natural and 
man-made disasters. If confirmed as the Assistant Secretary of Defense 
for Homeland Defense and Americas' Security Affairs, I will be the 
principal civilian advisor to the Secretary of Defense and the Under 
Secretary of Defense for Policy on homeland defense activities, Defense 
Support of Civil Authorities, and Western Hemisphere security matters. 
In this capacity, I will ensure that the Under Secretary of Defense for 
Policy and the Secretary of Defense receive the best possible policy 
input on how the Department can meet the challenges of defending the 
United States and assisting civil authorities in preventing terrorist 
attacks and responding to disasters more effectively. An important 
aspect of my approach will be to focus on ensuring development of 
realistic, detailed, and coordinated plans for civil support. Such 
plans can aid significantly in defining and validating the assistance 
needed by Federal, State, and local civil authorities, eliminating 
organizational, jurisdictional, and operational seams and gaps, and 
ensuring a unity of effort.

                         emergency preparedness
    11. Senator Collins. Dr. Stockton, your predecessor, Assistant 
Secretary Paul McHale, was a proponent of the Task Force for Emergency 
Readiness program, which facilitates State emergency planning by 
teaming State civilian planners, National Guard planners, Department of 
Homeland Security (DHS) Federal Preparedness Coordinators, and DOD 
Emergency Preparedness Liaison Officers. The Federal Emergency 
Management Administration is currently conducting a pilot program to 
evaluate the effectiveness of this idea. Provided that the pilot 
program proves successful, will you continue to support the 
participation of DOD planners in this effort?
    Dr. Stockton. Yes. Deliberate contingency planning improves 
effectiveness by clearly defining what capabilities are needed, where 
they are needed, and when they are needed. The coordinated State and 
Federal contingency planning intended by the Task Force for Emergency 
Readiness initiative also can reduce delays in necessary actions to 
save and sustain lives, reduce seams and gaps in a response, and limit 
shortfalls in critical resources needed for the response. Moreover, 
contingency plans can provide an invaluable mechanism by which to 
prepare potential responders through routine and rigorous training and 
exercises.

    12. Senator Collins. Dr. Stockton, one of the most effective ways 
to ensure that our Nation is prepared to manage catastrophic incidents 
is to conduct in-depth planning for those incidents before they occur. 
DOD excels at contingency planning, and has spent decades developing 
and refining an effective planning, budgeting, and evaluation system. 
Over the past several years, DHS has attempted to develop their own 
planning system and plans for dealing with various planning scenarios. 
How well do you believe DHS and DOD have been working together toward 
that end?
    Dr. Stockton. I believe that DHS and DOD have worked quite well 
together to develop both a planning system and specific plans. It is my 
understanding that DHS, DOD, and other Federal departments and agencies 
developed an Integrated Planning System, which was published in January 
2009, that was intended to be the national planning system for 
developing interagency and intergovernmental plans for domestic events. 
It also is my understanding that DHS, DOD, and other Federal 
departments and agencies have since December 2007 been developing 
Federal plans addressing the 15 National Planning Scenarios. If 
confirmed, I intend to work hard to ensure that DOD continues its 
strong support of DHS in this interagency planning effort.

    13. Senator Collins. Dr. Stockton, has DHS appropriately leveraged 
DOD planning capabilities and expertise?
    Dr. Stockton. There is always room for improvement, but I believe 
that DHS has leveraged DOD's planning capabilities and expertise quite 
appropriately. It is my understanding that: DOD planners are 
permanently attached, along with planners from other Federal 
departments and agencies, in the DHS office responsible for developing 
interagency plans for the 15 National Planning Scenarios; DOD, at DHS's 
request, frequently provides planners to augment DHS crisis planning 
during such events as the recent H1N1 outbreak; and DHS personnel 
routinely attend DOD contingency planning courses.

    14. Senator Collins. Dr. Stockton, how can DOD better integrate 
into Federal planning for catastrophic disasters?
    Dr. Stockton. It is my understanding that DOD is very integrated 
into and, in many ways, has provided substantial expertise and momentum 
to Federal planning for catastrophic disasters. If confirmed, I intend 
to review DOD's planning for catastrophic disasters and will work hard 
to make DOD's integration into, and support of, Federal planning for 
catastrophic disasters even more effective.
                                 ______
                                 
    [The nomination reference of Dr. Paul N. Stockton follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 28, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Paul N. Stockton of California, to be an Assistant Secretary of 
Defense, vice Paul McHale, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Paul N. Stockton, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Paul N. Stockton
    Paul Stockton is a Senior Research Scholar at Stanford University's 
Center for International Security and Cooperation, where he conducts 
research on the U.S. homeland security policymaking process. Prior to 
joining Stanford, Dr. Stockton served as Associate Provost of the Naval 
Postgraduate School (NPS) in Monterey, CA, and was the founder and 
Director of its Center for Homeland Defense and Security.
    Stockton received a B.A. summa cum laude from Dartmouth College in 
1976 and a Ph.D. in Government from Harvard University in 1986. He is 
co-editor of Homeland Security (forthcoming from Oxford University 
Press). Stockton serves on the editorial board of Homeland Security 
Affairs, the quarterly journal he helped found in 2005, and has 
testified before Congress on a range of homeland security issues. His 
research has appeared in Political Science Quarterly, International 
Security, Washington Quarterly and other journals. He is Co-Editor of 
Reconstituting America's Defense: America's New National Security 
Strategy (1992). Stockton has also published an Adelphi Paper and has 
contributed chapters to a number of books, including James Lindsay and 
Randall Ripley, Eds., U.S. Foreign Policy After the Cold War (1997).
    Dr. Stockton served from 1986-1989 as Legislative Assistant to U.S. 
Senator Daniel Patrick Moynihan. Dr. Stockton was awarded a 
Postdoctoral Fellowship for 1989-1990 by the Center for International 
Security and Arms Control at Stanford. In August 1990, Dr. Stockton 
joined the faculty of the NPS. From 1995 until 2000, he served as 
Director of the NPS Center for Civil-Military Relations. From 2000-
2001, Dr. Stockton founded and served as the acting Dean of the NPS 
School of International Graduate Studies. He was appointed Associate 
Provost in 2001.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Paul N. 
Stockton in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul Noble Stockton.

    2. Position to which nominated:
    Under preliminary consideration for Assistant Secretary of Defense 
for Homeland Defense and Americas' Security Affairs.

    3. Date of nomination:
    April 28, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 10, 1954; Los Angeles, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Christin Anne Englert.

    7. Names and ages of children:
    William Noble Stockton, 11.
    Henry Foster Stockton, 9.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University, Cambridge, MA; Attended September 1978-November 
1986, Received Ph.D. in Government in November 1986.
    Dartmouth College, Hanover, NH; Attended September 1972-June 1976, 
Received B.A in Government in June 1976.
    Highland Park Senior High School, St. Paul, MN; Attended September 
1971-June 1972, high school diploma awarded June 1972.
    River Falls Senior High, River Falls, WI; Attended September 1969-
June 1971.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    August 2006-present, Senior Research Scholar, Center for 
International Security and Cooperation (CISAC), Stanford University, 
Stanford, CA. Performed research and taught undergraduate classes 
related to Homeland Defense and Security issues.
    2001-2006, Associate Provost for Institutional Development, Naval 
Postgraduate School, Monterey, CA. Oversaw development and execution of 
programs to meet post-September 11 security challenges.
    Served simultaneously during same period as Director, NPS Center 
for Homeland Defense and Security (CHDS). Supervised the staff and 
directed the strategic planning for the graduate education and research 
center which is sponsored by DHS.
    2000-2001, Acting Dean, School of International Graduate Studies, 
Naval Postgraduate School, Monterey, CA. Supervised the faculty and 
support staff who provided graduate level education in the 
international field.
    1995-2000, Director, Center for Civil-Military Relations, Naval 
Postgraduate School, Monterey, CA 1995-2000. Directed the faculty and 
staff of this DOD sponsored center with focus on civil defense capacity 
for U.S. security partners.
    Associate Professor in NPS' Department of National Security 
Affairs. Taught graduate level courses to U.S. and international 
military officers.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Legislative Assistant to U.S. Senator D.P. Moynihan (D-NY), 1986-
1989.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Board of Advisors, Homeland Security Management Institute 
(HSMI), Long Island University, 121 Speonk-Riverhead Road, LIU Bldg., 
Riverhead, NY.
    Member, DHS Training Grant Advisory Board, Center for Continuing 
Studies, University of Connecticut, One Bishop Circle, Unit #4056, 
Storrs, CT.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Obama for America (2008) $100.
    Obama for America (2008) $250.
    Equality CA-Legal Action Committee (2008) $100.
    Murtha for Congress (2008) $100.
    2006 Vilsack for President (2006) $250.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
Naval Postgraduate School:
    Hamming Award for Interdisciplinary Innovation, 2004
    Certificate for Outstanding Instructional Contributions, November 
1996
    Certificate for Outstanding Instructional Contributions, October 
1991
Stanford University:
    Post-doctoral Fellowship, Center for International Security and 
Arms Control, 1989
Harvard University:
    Certificate of Distinction in Teaching, Committee on Undergraduate 
Education, 1982
    Earhart Foundation Fellowship, 1980-1982
    Sloan Foundation Public Management Grant, 1980
    RayAtherton Fellow, 1978-1979
Dartmouth College:
    Phi Beta Kappa, 1976
    Dartmouth College Citation, 1976
    Chase Peace Prize, 1976
    Bradley Scholarship, 1976
    Reynolds Scholarship (honorary award), 1976
    Public Affairs Fellowship, 1975
    Rufus Choate Scholar, 1973

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Books and Monographs:
    Paul Stockton and James Tritten, eds., Reconstituting Defense: 
America's New National Security Strategy (New York: Praeger, 1992).
    Strategic Stability Between the Superpowers: Adelphi Paper #213 
(London: International Institute for Strategic Studies, Winter, 1986), 
86 pp.
Journal Articles, Book Chapters and Book Reviews:
    ``Beyond the HSC/NSC Merger Integrating States and Localities into 
Homeland Security Policymaking,'' Homeland Security Affairs. Vol. 5, 
No. 1 (January 2009).
    ``Reform, Don't Merge, the Homeland Security Council,'' Washington 
Quarterly. Vol. 32, No. 1 (January 2009).
    ``Homeland Security After the Bush Administration: Next Steps for 
Building Unity of Effort,'' co-authored with Patrick Roberts, Homeland 
Security Affairs. Vol. IV, No. 2 (June 2008).
    ``The Department of Defense and the Problem of Mega-Catastrophes,'' 
in Bert Tussing, Ed., Threats at Our Threshold (Carlisle. PA: U.S. Army 
War College, 2007), pp. 65-87.
    Review Essay: The Next Catastrophe: Reducing Our Vulnerabilities to 
Natural, Industrial and Terror Disasters, Homeland Security Affairs. 
Vol. 3, No. 3 (Fall 2007).
    Review Essay: ``The Edge of Disaster,'' Homeland Security Affairs. 
Vol. 3, No. 2 (Summer 2007).
    ``Department of Defense Reorganization in the Post-Cold War Era,'' 
in Randall B. Ripley and James M. Lindsay, eds., Change in U.S. Foreign 
Policy After the Cold War Processes. Structures and Decisions 
(University of Pittsburgh Press, 1997), pp. 106-131.
    ``Beyond Micromanagement: Congressional Budgeting for a Post-Cold 
War Military,'' Political Science Quarterly. 110:2 (Summer 1995), pp. 
233-260.
    ``Congress and U.S. Military Policy Beyond the Cold War,'' in 
Randall Ripley and James Lindsay, eds., Congress Resurgent: Foreign and 
Defense Policy on Capitol Hill (Ann Arbor: University of Michigan 
Press, 1993), pp. 235-260.
    ``Introduction'' and The Congressional Response,'' in Stockton and 
Tritten, Reconstituting Defense. (1992) pp. 1-10 and 69-88.
    ``De-Escalatory Confidence-Building Measures and Strategic Arms 
Reductions,'' in Joe Nation, ed., Back from the Brink: De-Escalation of 
Nuclear Crises (London: St. Martin's Press, 1992), pp. 179-197.
    ``The New Game on the Hill: The Politics of Arms Control and 
Strategic Force Modernization,'' International Security. Vol. 16, No. 2 
(Fall 1991), pp. 146-171.
    ``New Factors in Surface Ship Survivability, Strategic Survey. 
1982-3, pp. 128-132.
    ``Arms Developments and Arms Control: The Strange Case of the MX 
Missile,'' in Alan P. Sindler, ed., American Politics and Public Policy 
(Washington, DC: Congressional Quarterly Press, 1982), pp. 225-253.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Testimony before the Subcommittee on Economic Development, Public 
Buildings, and Emergency Management, Committee on Transportation and 
Infrastructure, U.S. House of Representatives, Hearing on ``Readiness 
in the Post Katrina and Post-September 11 World: An Evaluation of the 
New National Response Framework,'' 11 September 2007.
    Testimony before the Appropriations Subcommittee on Homeland 
Security, U.S. House of Representatives, Hearing on ``5 and 10 Year 
Homeland Security Goals: Where We Need to Be As a Nation and How We 
Judge Progress?'' 30 January 2007.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Paul N. Stockton.
    This 11th day of May, 2009.

    [The nomination of Dr. Paul N. Stockton was reported to the 
Senate by Chairman Levin on May 14, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 18, 2009.]
                              ----------                              

    [Prepared questions submitted to Thomas R. Lamont by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act changed Department of Defense 
(DOD) operations profoundly and positively. Although I believe that the 
framework established by Goldwater-Nichols has significantly improved 
inter-service and joint relationships and promoted the effective 
execution of responsibilities, the Department, working with Congress, 
should continually assess the law in light of improving capabilities, 
evolving threats, and changing organizational dynamics. I am currently 
unaware of any reason to amend Goldwater-Nichols, but if confirmed, I 
will have an opportunity to assess whether the challenges posed by 
today's security environment require amendments to the legislation with 
a view to continuing the objectives of defense reform.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I look forward to reviewing this milestone 
legislation and assessing whether any changes should be considered to 
address the challenges posed by today's security environment.
                                 duties
    Question. Section 3016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Army for Manpower and Reserve Affairs shall 
have ``as his principal duty the overall supervision of manpower and 
Reserve component affairs of the Department of the Army.''
    If confirmed, what duties do you expect that the Secretary of the 
Army will prescribe for you?
    Answer. Although the Secretary of the Army has not discussed with 
me the duties and functions he will expect that I perform if I am 
confirmed, I anticipate that he will rely on me to provide accurate and 
timely advice in the area of Army manpower and Reserve affairs, as the 
statute establishing the position of the Assistant Secretary of the 
Army for Manpower and Reserve Affairs provides. I presume also that the 
specific duties assigned to this position would be consistent with the 
responsibilities assigned to the Assistant Secretary for Manpower and 
Reserve Affairs in Headquarters, Department of the Army General Orders 
Number 3, which sets forth the duties of each principal office of the 
Headquarters, Department of the Army. In addition, I believe the 
Secretary of the Army would expect me to continue pursuing an 
effective, professional relationship with the Under Secretary of 
Defense (Personnel and Readiness) and other key officials within the 
Office of the Secretary of Defense, other Military Department Assistant 
Secretaries for Manpower and Reserve Affairs, and the other Army 
Assistant Secretaries. I anticipate that the Secretary will expect me 
to continue and to build upon the effective and professional working 
relationships between the Office of the Assistant Secretary of the Army 
(Manpower and Reserve Affairs) and the Deputy Chief of Staff, G-1 
(Personnel); The Surgeon General; the Chief, Army Reserve; the Chief, 
National Guard Bureau; and the Director of the Army National Guard.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of the Army for Manpower 
and Reserve Affairs?
    Answer. Although I look forward to assuming the duties of the 
Assistant Secretary of the Army (Manpower and Reserve Affairs), should 
the Senate confirm me, I recognize that every new Assistant Secretary 
has much to learn. If I am confirmed, I will work to further my 
understanding and knowledge of the Army, its people and organizations, 
the challenges it faces and the resources necessary to sustain and 
transform it. I will work with and through the talented and dedicated 
military and civilian personnel serving the Department to broaden my 
expertise and increase my knowledge and will seek advice and counsel 
from the many and diverse stakeholders dedicated to the success of the 
Army, including the Members and staff of Congress.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of the Army.
    Answer. If I am confirmed, my relationship with the Secretary of 
the Army would be close, direct, and supportive. I would work to 
communicate as effectively as possible with the Secretary regarding the 
advice, views, and plans of the Secretariat and Army Staff and to 
oversee the implementation of the Secretary's decisions through the 
Army. If I am confirmed, I understand that my actions would be subject 
to the authority, direction, and control of the Secretary of the Army.
    Question. The Under Secretary of the Army.
    Answer. If confirmed, I would establish a close, direct, and 
supportive relationship with the Under Secretary of the Army. Within 
the Department of the Army, my responsibilities would also involve 
communicating the Secretariat and Army Staff advice, views, and plans 
to the Under Secretary of the Army and to oversee the implementation of 
his decisions falling within my area of responsibility (AOR). I further 
understand that the Under Secretary is the Chief Management Officer 
(CMO) of the Department of the Army and, in that role, exercises 
primary management responsibility for the business operations of the 
Army. If confirmed, I would work closely with the Under Secretary in 
his role as CMO, particularly to the extent those duties affect human 
capital management and other ``business operations'' within the 
functional purview of the Assistant Secretary of the Army (Manpower and 
Reserve Affairs).
    Question. The other Assistant Secretaries of the Army.
    Answer. The other Assistant Secretaries of the Army set strategic 
direction by formulating and overseeing policies and programs within 
their respective functional areas of responsibility, consistent with 
applicable laws and regulations and in accordance with the objectives 
and guidance of the Secretary of the Army. If confirmed, I will 
establish and maintain close and professional relationships with each 
of the Assistant Secretaries and seek to foster an environment of 
cooperative teamwork, working together on the day-to-day management and 
long-range planning needs of the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of Army. His duties include providing legal and policy 
advice to officials of the Department of the Army, as well as 
determining the position of the Army on any legal question or 
procedure. If confirmed, I will establish and maintain a close and 
professional relationship with the General Counsel of the Army.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army is charged with inquiring 
into, and reporting on the discipline, efficiency, economy, morale, and 
training, and readiness of the Army. If confirmed, I will establish and 
maintain a close and professional relationship with The Inspector 
General of the Army.
    Question. The Chief of Legislative Liaison of the Department of the 
Army.
    Answer. The Chief of Legislative Liaison is responsible for all 
Department of the Army Congressional affairs, to include formulating, 
coordinating, and supervising policies and programs on the Army's 
relations with Congress and the Department's legislative strategy. If 
confirmed, I will establish and maintain a close and professional 
relationship with the Chief of Legislative Liaison.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. Acting on behalf of the Secretary of Defense, the Under 
Secretary of Defense for Personnel and Readiness performs 
responsibilities that require the issuance of guidance to the military 
departments. If confirmed, I will communicate openly and directly with 
the Under Secretary of Defense for Personnel and Readiness in 
articulating the views of the Department of the Army. I will have a 
close and professional relationship with the Under Secretary of Defense 
for Personnel and Readiness, characterized by continuous consultation, 
communication, and cooperation on matters of mutual interest, in 
furtherance of the best interests of the Army and DOD.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. Acting on behalf of the Secretary of Defense and Under 
Secretary of Defense for Personnel and Readiness, the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness performs 
responsibilities that require, from time to time, the issuance of 
guidance to the military departments. If confirmed, I will communicate 
openly and directly with the Principal Deputy Under Secretary of 
Defense for Personnel and Readiness in articulating the views of the 
Department of the Army. I will work closely with the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness to ensure that 
the Department of the Army is administered in accordance with the 
guidance and direction issued by the Office of the Secretary of 
Defense.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the Secretary's senior 
military advisor in all matters and has responsibility for the 
effective and efficient functioning of Army organizations and commands 
in performing their statutory missions. If confirmed, I will work 
closely and in concert with the Chief of Staff to supervise the 
implementation of the Secretary's decisions.
    Question. The Deputy Chief of Staff of the Army for Personnel.
    Answer. The Deputy Chief of Staff, G-1, serves as the principal 
military advisor to the Assistant Secretary for Manpower and Reserve 
Affairs and formulates, manages, evaluates and executes military and 
civilian personnel plans and programs for the Army for peacetime, 
contingency and wartime operations. If confirmed, I will establish a 
close, professional relationship with the Deputy Chief of Staff, G-1 
(Personnel). I will consult with him frequently and communicate with 
him directly and openly as he performs his prescribed duties. I expect 
that, if I am confirmed, he and I will work together as a team on a 
daily basis.
    Question. The Surgeon General of the Army.
    Answer. The Surgeon General is a special advisor to the Secretary 
of the Army and to the Chief of Staff on all matters pertaining to the 
military health service system. In that role, The Surgeon General 
assists the Secretary and the Chief in carrying out their 
responsibilities by ensuring a medically ready force as well as a 
trained and ready medical force. If confirmed, I intend to work closely 
with The Surgeon General to ensure that the Army's health care systems 
and medical policies support the Army's objectives, responsibilities, 
and commitments effectively and uniformly across the total force, with 
a particular focus on Wounded Warriors.
    Question. The Chief, National Guard Bureau
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense and is the 
principal adviser to the Secretary of the Army and the Chief of Staff 
of the Army, and to the Secretary of the Air Force and the Chief of 
Staff of the Air Force, on matters relating to the National Guard, the 
Army National Guard of the United States, and the Air National Guard of 
the United States. Because the National Guard is a key element of the 
Reserve component, the Assistant Secretary of the Army for Manpower and 
Reserve Affairs must work closely with the Chief, National Guard Bureau 
to provide overall supervision of National Guard matters across all 
aspects of Army business. If confirmed, I will establish a close, 
professional relationship with the Chief, National Guard Bureau. I will 
communicate with him directly and openly as he performs his prescribed 
duties.
    Question. The Chief, Army Reserve
    Answer. The Chief, Army Reserve is the principal advisor to both 
the Secretary of the Army and Chief of Staff of the Army on all Army 
Reserve matters. Because the Army Reserve is a key element of the 
Reserve component, the Assistant Secretary of the Army for Manpower and 
Reserve Affairs must work closely with the Chief, Army Reserve, to 
provide overall supervision of Reserve matters across all aspects of 
Army business. If confirmed, I will establish a close, professional 
relationship with the Chief, Army Reserve. I will communicate with him 
directly and openly as he performs his prescribed duties.
    Question. Soldiers and their families.
    Answer. The men and women who serve in the Armed Forces are our 
Nation's most valuable national security assets. The Army owes its 
success to these versatile young Americans who answer its call to duty 
and service. Caring for soldiers and their Army families through 
effective quality of life programs both demonstrates the Army's 
commitment to the total Army family and endeavors to reflect the value 
of their service to our Nation. If confirmed, I will work diligently to 
ensure the needs of soldiers and their families are addressed across 
the total Army.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. The diversity and complexity of issues confronting the 
Department of the Army are such that very few can have in-depth 
experience in them all. However, an Assistant Secretary of the Army 
must possess the personal attributes of integrity, mature judgment, and 
strong interpersonal and leadership abilities. I believe that my 
diverse legal and managerial experiences in both the public and private 
sectors have prepared me to meet the many challenges of this office.
    I have 37 years of organizational experience in the public and 
private sectors during which I have developed valuable executive 
leadership and problem-solving skill-sets. In addition, I served as a 
judge advocate in the National Guard for more than 25 years, 
experiencing first-hand the life of a soldier. As an attorney in the 
private sector, I concentrated my efforts in government, administrative 
and regulatory matters, serving a broad spectrum of clients ranging 
from individual entrepreneurs to Fortune 500 companies. In the public 
arena, I had the privilege of serving in leadership roles with the 
Illinois Attorney General's Office, the State's Attorney Appellate 
Prosecutor Commission and, most recently, as executive director of the 
Illinois Board of Higher Education (IBHE). As executive director of the 
IBHE, I was responsible for budgeting and appropriations, curriculum 
approval, degree granting authority, and the implementation of 
gubernatorial and legislative policy in all Illinois public colleges 
and universities. As Chairman of the Board of Trustees for the 
University of Illinois, the Nation's fourth largest public university, 
with some 70,000 students and 22,000 employees, I experienced, first-
hand, the challenges of leading and managing a large organization, 
working with widely diverse cultural and geographic population groups, 
and the myriad issues associated with an academic environment.
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of the Army for Manpower and Reserve 
Affairs?
    Answer. In my view, the fundamental challenge facing the Assistant 
Secretary of the Army for Manpower and Reserve Affairs is manning the 
force. I view the recruitment and retention of high caliber citizens to 
man the active, Reserve and civilian ranks as an important aspect of 
maintaining Army readiness. The Army's ability to staff the Army fully 
with the Active, Guard, and Reserve component military members and 
civilians necessary to execute its complex and challenging missions, 
both today, and in the future, presents unprecedented challenges. The 
Army will continue to have a compelling need to garner support for 
soldiers, to obtain sufficient funding to achieve critical recruiting 
and retention goals, and to maintain the financial investment in the 
quality of life programs that help to sustain the All-Volunteer Force. 
I believe that the Army must continue to engage actively in proactive 
marketing campaigns, pursue robust and attractive initiatives and 
incentives, and continue to seek ways to improve health and well-being 
programs. If confirmed, I would candidly assess the Army recruiting and 
retention posture and work to initiate or enhance programs of the type 
and quality most likely to support the Army's recruiting and retention 
needs--both military and civilian.
    Second, I believe that the Army's ability to prevail in current 
operations and to sustain global commitments is critical. The Army must 
continue to maintain the momentum of transformation by adapting Army 
forces and balancing the employment of Active and Reserve component 
units and soldiers. If confirmed, I would lead and partner on efforts 
to formulate policies that will help facilitate the Department's 
adaptation to the changing operational environment.
    Finally, among the major challenges I would face, if confirmed, is 
the need to foster and maintain an environment in which soldiers and 
civilian employees can serve free of discrimination and harassment and 
pursue assignments and advancement, that while responsive to the needs 
of the Army, are based on individual qualification and performance.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will focus immediately on these matters, 
review those actions that are underway, and join with other civilian 
leaders and with my counterparts in uniform to resolve them to the best 
of my ability. I will build upon this and other recent successes in 
holding the Department of the Army up as a model employer in both the 
military and civilian contexts.
    Question. In your view, what were the most critical shortcomings in 
warrior care since 2001?
    Answer. As I understand it, the Army was not prepared for the 
increase in wounded, ill, and injured soldiers that resulted from 
overseas contingency operations such as Operations Enduring Freedom and 
Iraqi Freedom. One area that needed improvement was the management of 
outpatient soldiers during their recovery period. If confirmed, it will 
be my distinct honor and privilege to do all I can to continue to 
promote a high standard of care for our Wounded Warriors.
    Question. What is your assessment of the effectiveness of the 
Army's response?
    Answer. I am advised that the Army has increased Warrior Transition 
Unit resources, established a proven approach to care management 
through the triad of care concept, centralized support to Warriors in 
Transition and their families by colocating support services in Soldier 
Family Assistance Centers, implemented the Comprehensive Transition 
Plan approach to helping soldiers plan and attain their recovery goals 
and has begun the process of building Warrior Transition Complexes. If 
confirmed, I will assess the effectiveness of the Army's response and 
continue to work with Congress to ensure our warriors receive the 
highest possible care and support.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded soldiers, and to monitor their progress in returning to duty or 
to civilian life?
    Answer. If confirmed, I will assess continuously the efficiency and 
appropriateness of the Army's response. I will implement strategies and 
seek additional resources as appropriate to ensure the Army meets the 
needs of our wounded soldiers.
    Question. Studies following the revelations at Walter Reed point to 
the need to reform the Army's disability evaluation system.
    What is your assessment of the need to streamline and improve the 
Army's disability evaluation system?
    Answer. I am informed that beginning November 26, 2007, the Army 
started to test a revamped physical disability evaluation program at 
Walter Reed Army Medical Center, streamlining the process used to 
determined soldiers' fitness for service or eligibility for military 
and veterans' benefits. I am advised that key features of this pilot 
program include a single medical examination and a single-sourced 
disability rating. It is my understanding that the Department of 
Veterans Affairs (DVA) conducts a single comprehensive exam and will 
rate all medical conditions. The Military Departments accept the DVA 
rating for all medical conditions determined unfitting for continued 
military Service unless the condition involves noncompliance, 
misconduct, or a nonservice aggravated medical condition which existed 
prior to service.
    Based on the limited information I have so far, I believe the 
process does need to be improved. If confirmed, I will work to this end 
with stakeholders in the Army, as well as with experts in DOD and DVA.
    Question. If confirmed, how will you address any need for change?
    Answer. If I am confirmed, I will listen to the information 
presented by the experts in this area and study the process myself. 
After becoming fully briefed on the issues, I would work with the 
stakeholders in the Army and appropriate personnel in both DOD and DVA 
to determine what areas should be changed and how best to accomplish 
those changes.
                       officer management issues
    Question. As the Assistant Secretary of the Army for Manpower and 
Reserve Affairs you would have significant responsibilities with regard 
to officer management policies, the promotion system, and recommending 
officers for nomination to positions of authority and responsibility.
    If confirmed, what changes, if any, would you make to the officer 
management system?
    Answer. The Army has an exceptionally talented officer corps 
spanning all three components of the Army. I have been informed that 
the Army is in the process of initiating a comprehensive review of the 
laws and policies that govern the management of the officer corps 
across all components. If confirmed, I look forward to reviewing the 
report and assessing whether changes might be appropriate. If 
confirmed, I will not hesitate to seek your assistance should the 
Army's review indicate that changes to law are needed in order to 
optimize the development of the officer corps. The management and 
development of these talented and skilled leaders should be supported 
by systems, laws and policies that reflect the challenges the Army 
faces today, and should not be constrained by outdated paradigms.
    Question. Do you believe the current Army procedures and practices 
for reviewing the records of officers pending nomination by the 
President are sufficient to ensure the Secretary of the Army, the 
Secretary of Defense, and the President can make informed decisions?
    Answer. I have been assured that the current Army procedures for 
case review of officer promotion nominations are sufficient and provide 
Army leadership with accurate and timely information in order to make 
informed decisions and recommendations. I believe these procedures must 
be sufficiently rigorous to ensure officers meet the statutory 
requirement of exemplary conduct both before and after the convening of 
a promotion selection board.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. It is my understanding that if any adverse information is 
discovered during the screening process, the officer is provided with 
notice and an opportunity to respond, and that the officer's response 
is provided to the promotion board. This appears to be reasonable; 
however, if confirmed, I will have the opportunity to witness these 
procedures in action and make a more fully informed assessment.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general and flag officer nominations?
    Answer. I have been advised that all officer promotions, including 
general officer promotions, are provided to the Assistant Secretary of 
the Army (Manpower and Reserve Affairs) for review and coordination. 
These actions will have received a thorough legal review by both the 
Office of The Judge Advocate General and the Army General Counsel, 
prior to Assistant Secretary review. If confirmed, I will ensure that 
each Army general officer nomination receives my personal review and 
approval prior to forwarding to the Secretary of the Army for further 
processing. I will give special attention to any case of a nominee with 
a report of adverse or reportable information in order to ensure that 
the Army's support of the officer's nomination is appropriate, and that 
adverse and reportable information is reported to the Senate Armed 
Services Committee in a timely, accurate, and comprehensible manner.
    Question. What is your assessment of the ability of the Services to 
timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. While it is too early to make a true assessment, it is my 
understanding that under current Department of the Army practice, the 
adverse information presented to promotion selection boards is culled 
from numerous Army organizations that maintain relevant data, and 
generally has been found to be accurate and timely. A panel of senior 
officials conducts a special screening of adverse information to ensure 
that any credible information of an adverse nature is presented to 
general officer promotion selection boards as required by title 10, 
U.S.C., section 615. I understand that, if confirmed, I would be a 
member of this panel.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
and flag officer rank?
    Answer. It is my understanding that the Army promotion board system 
is fair and efficient and consistently produces promotion 
recommendations of the best qualified officers for promotion at all 
levels. As stated above, if confirmed, I will personally review each 
general officer nomination, and I will give special attention to any 
case of a nominee with a report of adverse or reportable information, 
in order to ensure that the Army's support of the officer's nomination 
is appropriate and that adverse and reportable information is reported 
to the Senate Armed Services Committee in a timely, accurate, and 
comprehensible manner.
                 technical training of general officers
    Question. In your view, do a sufficient number of Army general 
officers have advanced training and degrees in scientific and technical 
disciplines?
    Answer. I have been informed that the selection requirements for 
one- and two-star promotion selection boards are developed based upon 
the needs of the Army and necessarily include the scientific and 
technical disciplines projected by Army requirements.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the Army can execute complex acquisition 
programs, adapt to a rapidly changing technological threat environment, 
and make informed investment decisions on DOD and Army resources?
    Answer. I have been informed that the Army carefully manages its 
officer corps to ensure officers have the appropriate level of 
adaptability and technical expertise relevant to each career field. I 
have also been informed that the Army is presently growing its 
Acquisition Corps. If I am confirmed, I will study whether career paths 
for officers provide them with the technical skills and experiences to 
take on the responsibilities of our complex acquisition programs.
    Question. If not, what will you do to address this deficiency?
    Answer. As stated above, the Army is in the process of shaping and 
developing a more robust Acquisition Corps. If confirmed as the 
Assistant Secretary of the Army (Manpower and Reserve Affairs), I will 
have oversight of this process and will ensure that plans and 
strategies remain suitable and viable.
                      mid-career officer shortfall
    Question. The requirement stemming from Army modernization, in 
addition to the high tempo of operations, has created the need for 
significantly more officers in the grades of captain and major.
    Do you agree that there is a significant shortfall of mid-career 
officers in the Army?
    Answer. I have been informed that the Army is currently 
experiencing a shortfall of 4,000 captains and majors, which is a 
critical issue for the Army. If confirmed, I will review the plans in 
place to ensure that this shortfall is being appropriately addressed in 
a timely manner.
    Question. What is your understanding of the reasons for the 
shortfall?
    Answer. It is my understanding that there are three primary reasons 
for this shortfall. First, during the post-Cold War drawn-down from an 
end-strength of 770,000 to 480,000 resulted in lower accession rates 
for officers in year groups in the 1990s. Second, the more recent 
transformation to a modular force structure increased the officer-
enlisted ratio. Third, the increase in end strength to 547,400 
increased the overall demand for officers.
    Question. What is the Army doing to address this shortfall?
    Answer. I have been informed that the Army has a number of 
initiatives designed to address this critical issue, which includes 
increasing accessions, incentives, and appropriate adjustments to the 
time-in-grade requirements. As noted above, if confirmed, I will 
carefully review all these initiatives.
    Question. If confirmed, will you undertake a comprehensive review 
of the medical support requirements for the Army and the sufficiency of 
the plans to meet recruiting and retention goals in these specialties?
    Answer. I appreciate the committee's concerns in this regard and, 
if confirmed, pledge to consider this matter with the seriousness of 
purpose it mandates. Medical support requirements are critical to the 
success of our All-Volunteer Force and I intend to pay special 
attention to health care requirements and needs. Recruiting and 
retention of health care professionals is a challenge across the 
country, and the Army is experiencing shortages in several specialties; 
however, even during these challenging times, I am pleased to have 
learned that Army medicine continues to attract and produce world-class 
physicians, nurses, and medics.
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Army can continue to meet medical support requirements?
    Answer. I am not familiar with the full scope of the Army's program 
for recruiting and retaining military and civilian medical personnel; 
however, if confirmed, I will work closely with The Surgeon General to 
evaluate the Army's requirements and to support on-going programs and 
develop initiatives to enhance the Army's ability to recruit and retain 
care providers and support personnel with the requisite critical 
skills. Should legislative or policy changes be required, I will work 
with the Secretary of the Army, other Army leaders, the leadership of 
DOD, and Congress, to bring them to fruition.
             report of the dod task force on mental health
    Question. The Department of Defense Task Force on Mental Health 
found that the stigma surrounding post-traumatic stress disorder and 
other mental health issues acts as a barrier to many servicemembers 
seeking the help that they need. Additionally, the Task Force found 
that there are significant issues with accessibility and numbers of 
mental health providers, stating that the ``military system does not 
have enough fiscal or personnel resources to adequately support the 
psychological health of servicemembers and their families.''
    If confirmed, what actions will you take to ensure that appropriate 
numbers of mental health resources are available to soldiers in 
theater, and to the soldiers and their families upon return to home 
station?
    Answer. It appears to me that the Army has made great strides in 
improving the number and accessibility of mental health care providers. 
If confirmed, I will continue this effort by reviewing the Army's 
current force structure and its retention and recruitment programs 
across all force components, military and civilian. I will endeavor to 
ensure that the beneficiaries of the Army health care system have 
access to mental health services of the highest possible quality.
    Question. What actions should senior leaders take to erase the 
stigma associated with seeking mental health care in the Army?
    Answer. The stigma associated with seeking mental health care is 
not unique to the military; it exists across the country. I perceive 
that the Army is working diligently to eliminate the stigma associated 
with seeking mental health care, although it appears that more needs to 
be done. If confirmed, I would review carefully the factors that 
contribute to the misperception that seeking mental health care is 
evidence of personal weakness or that seeking care will derail one's 
military career. I would continue to support broad-based positive 
communication, training, and outreach programs, and promote access to 
mental health services so as to minimize actual and perceived barriers 
to care.
                        active-duty end strength
    Question. The Army has increased its active-duty end strength to 
meet current and future operational requirements. The Army had planned 
to increase its end strength to 547,400 by 2010, but has already 
achieved this goal in 2009.
    In your view, what is the appropriate Army Active-Duty end strength 
needed to meet the demand for deployed forces, increase nondeployed 
readiness, build strategic depth, and relieve stress on soldiers and 
their families?
    Answer. If confirmed, I will review the Army's projections in light 
of the demands and ensure that any increases in end strength are well 
analyzed, coordinated across the Department, and fully justified.
    Question. If Army end strength is projected to be above the 
authorized 547,000 in fiscal years 2009 or 2010, how would you propose, 
if confirmed, to fund the additional end strength above current 
authorized levels?
    Answer. If I am confirmed, I would work closely with the Assistant 
Secretary for Financial Management, the Under Secretary of the Army, 
and the Secretary of the Army to identify appropriate funding sources.
    Question. Do you believe that an end strength of 547,400 is 
sustainable in the long term?
    Answer. Yes, given the appropriate level of resourcing.
                        modularity <plus-minus>
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a large division-based to a brigade-
based structure. The new modular brigade combat team is supposed to 
have an increased capability to operate independently based upon 
increased and embedded combat support capabilities such as military 
intelligence, reconnaissance, and logistics. Although somewhat smaller 
in size, the new modular brigades are supposed to be just as or more 
capable of full spectrum operations than the divisional brigades they 
replace.
    What is your understanding and assessment of the manpower and 
personnel management requirements of the Army's modular design and 
implementation of this transformation strategy?
    Answer. It is my understanding that the increased capabilities 
resident in the modular brigade combat teams have greatly enhanced 
their ability to meet current and projected Combatant Commander (COCOM) 
requirements. This increased capability places additional requirements 
on numerous skill sets, which are already in high demand. I believe it 
may take years to mature the full complement of senior officers and 
NCOs necessary to support these increased capabilities.
    Question. In your view, what are the greatest personnel challenges, 
if any, in realizing the transformation of the Army to the modular 
design? If confirmed, what actions or changes would you propose, if 
any, relative to the Army's modular transformation strategy?
    Answer. It is my understanding that the Army remains committed to 
fielding the best trained, most capable forces possible, and that the 
Army should not compromise on training to increase availability. The 
longer train/educate/mature times required by the Army's modular 
formations for the additional field grade officer and senior NCO 
personnel requirements may take us years to generate. If I am 
confirmed, I will assess whether any changes should be considered to 
address these challenges, and after careful study and deliberation, I 
will provide the Secretary with cogent advice regarding these changes.
                      army force generation model
    Question. The Army relies on a force generation model (ARFORGEN) in 
which units are manned, equipped, and trained to appropriate readiness 
levels over time as they cycle through ``reset and train,'' ``ready,'' 
and ``available for deployment'' force pools.
    What is your understanding and assessment of the manpower and 
personnel management requirements of the Army's force generation 
methodology?
    Answer. ARFORGEN provides cyclic readiness for the force over a 
given time period. The current manpower processes and procedures 
support this cyclic readiness by providing the manpower required for 
next deployers and other high priority missions. If confirmed, I will 
work diligently to ensure that the Army's current manpower processes 
and procedures continue to support the ARFORGEN model.
    Question. In your view, what are the greatest manpower and 
personnel management challenges, if any, in implementing ARFORGEN?
    Answer. It is my understanding that the greatest challenge facing 
manpower and personnel management is that ARFORGEN and the Army are 
coping with shortfalls of high-demand grades and skills, which results 
in a short dwell in the continental United States between deployments. 
High demand personnel are arriving at next deploying units on a Just-
In-Time basis for training and deployment.
    Question. If confirmed, what actions or changes would you propose, 
if any, to the design, implementation, or management of ARFORGEN?
    Answer. It is my understanding that ARFORGEN significantly changed 
the way the Army generates forces to support Combatant Commanders' 
requirements, moving from tiered readiness to cyclic readiness. At this 
time I am unaware of any need to amend or modify the ARFORGEN model; 
however, if confirmed, I will fully assess the manpower processes and 
procedures that support ARFORGEN and make appropriate recommendations, 
if required.
                               stop-loss
    Question. How does the Army plan to implement the Secretary of 
Defense's recent direction to end the use of stop-loss without eroding 
unit manning and unit cohesion?
    Answer. The Secretary of Defense has directed that the Army phase 
out the use of Stop-Loss over time in order to mitigate manning issues 
created by soldier separations and retirements. Further, I understand 
that adjustments to manning mechanisms are underway that are designed 
to replace separating soldiers in units scheduled to deploy; and that 
incentive programs have been developed to encourage soldiers who do not 
intend to reenlist to extend their service long enough to complete a 
deployment with their units.
                    operational and personnel tempo
    Question. Current DOD policy is that Active component personnel 
will have 2 years of dwell time for each year of deployment and that 
Reserve component members have 5 years of dwell time for each year they 
are mobilized.
    What is your view of the achievability of this goal? What measures 
must be taken by the Army to be able to achieve it in 5 years or less?
    Answer. It is my understanding that this is an important aspect of 
sustaining the All-Volunteer Force because it facilitates 
predictability for our soldiers and their families, allows for 
professional military development, and facilitates time for Army 
National Guard dual-use with the States. If confirmed, I will undertake 
a review of the Army's current personnel programs with a view of 
assessing the achievability of the DOD goal, and when necessary, I will 
make appropriate recommendations to the Secretary designed to maximize 
dwell time consistent with the DOD policy.
    Question. In your view, how will shifting resources from Iraq to 
Afghanistan affect dwell-time ratios?
    Answer. It is my understanding that the concept outlined by the 
President and the plan briefed to senior DOD leaders by Central Command 
(CENTCOM) will result in increases in the dwell-time ratios for many of 
the affected units.
    Question. How will the end of the use of stop-loss affect dwell 
time ratios?
    Answer. I have been informed that the reduction of the use of Stop 
Loss will not affect unit Boots-on-the-Ground (BOG) to Dwell Time 
ratios. It may, however, have a negative impact on the dwell times of 
individual soldiers with high demand skills.
    Question. What is your assessment of the Army's ability to support 
scheduled troop rotation planning in 2009 and beyond, particularly in 
combat support and combat service support missions, given this goal?
    Answer. I have been informed that based on the anticipated 
transition force demand in the CENTCOM AOR, the Army will be able to 
meet validated requirements--combat, combat support, and combat service 
support missions--while increasing dwell-time ratios across the force.
    Question. What measures are being taken to respond to operational 
requirements for low-density/high-demand units and personnel whose 
skills are found primarily in the Reserve components, e.g., civil 
affairs, medical personnel, and truck drivers?
    Answer. I have been informed that the Army assesses force 
capabilities and adjusts force unit capacity, as necessary, to respond 
to operational requirements in low-density/high-demand units. If 
confirmed, I would ensure that the Army continues to assess force mix 
across all three components to meet the strategic demands of 
conventional campaigns, irregular warfare operations and homeland 
defense/civil support missions, with a view towards balancing the force 
structure to minimize risk in availability of low-density/high-demand 
units.
    Question. In your view, what will be the effect on recruiting, 
retention, and readiness of the Army of the current rates of operations 
and personnel tempo through 2010?
    Answer. I have been informed that the Army has experienced no 
negative effects on recruiting and retention due to operational and 
personnel tempo. If confirmed, I will continue to monitor this critical 
area.
    Question. In your judgment, what would be the impact on the current 
rates of operations and personnel tempo of assigning principal 
responsibility for support to civil authorities for consequence 
management of natural, domestic disasters to either our Active or 
Reserve component forces?
    Answer. If confirmed, I would work with Department leaders, in 
coordination with appropriate members of the Joint Staff, to make a 
careful assessment of this issue and provide the Secretary with cogent 
advice that will fully consider the challenges of today's security 
environment.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness, monitoring, 
antiquated pay systems, limited transition assistance programs upon 
demobilization, and lack of access to members of the Individual Ready 
Reserve (IRR). Reserve Force management policies and systems have been 
characterized in the past as ``inefficient and rigid'' and readiness 
levels have been adversely affected by equipment stay-behind, cross-
leveling, and reset policies.
    What is your assessment of advances made in improving Army Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. It is my understanding that since the beginning of 
Operations Enduring Freedom and Iraqi Freedom, the Army has made 
significant advances in improving mobilization and demobilization 
processes. Most importantly, the Army has achieved improved 
predictability and pre-mobilization readiness through the 
implementation of Army Force Generation (ARFORGEN) and through 
achieving earlier notification of sourcing (NOS) and Alert prior to 
mobilization.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. The implementation of ARFORGEN has been a significant 
change to the administration of the Reserve components and I believe 
helped to ensure readiness for future mobilization requirements.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. At this point, based predominantly on my personal 
experience as a member of the National Guard, I feel current statutory 
authorities are sufficient to support mobilization requirements. If 
confirmed, I will be in a better position to assess whether to 
recommend changes to applicable law and policy.
    Question. Do you agree that National Guard and Reserve personnel 
should be mobilized to augment civilians deployed to Afghanistan?
    Answer. Yes, I believe that National Guard and Reserve component 
personnel bring skills and experience that can be used to augment other 
executive branch agencies and their civilian employees. For example, 
Army Civil Affairs soldiers are currently employed in this capacity in 
Afghanistan.
    Question. What are your views on the proper role of the IRR in Army 
force management planning?
    Answer. It has been explained to me that the IRR is an available 
manpower pool consisting of individuals who have been trained and 
previously served in the active forces or in the Selected Reserve. The 
IRR has proven to be a steady and valuable asset for the Army. Even 
given my limited knowledge, it would appear that the IRR is serving an 
important role. If confirmed I will have the opportunity to look more 
closely at this issue.
    Question. If confirmed, what changes, if any, do you foresee making 
to the Army's IRR recall policy?
    Answer. At this stage of the confirmation process I cannot predict 
what changes may be required. However, I am informed that the Army 
continuously monitors and reviews its processes and procedures. If 
confirmed, I believe that my assigned duties would afford me the 
opportunity to further evaluate the processes and policies applicable 
to the IRR.
    Question. What are your views about policies affecting continued 
service by officer and enlisted personnel in the Reserve components who 
have fulfilled their Military Service Obligation (MSO)?
    Answer. It is my understanding that all Ready Reserve soldiers are 
retained for the entire period of their MSO or contractual obligation, 
or they may voluntarily remain in the IRR. Our soldiers are very loyal 
to their country and should be commended for their continuing service. 
If confirmed I will be in a position to review the relevant policies 
and better determine if they remain suitable.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to Active Duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the Army's decision on that request?
    Answer. I have been informed that the system in place to process 
requests from an IRR soldier for delay, exemption, or appeal of an 
order to Active Duty allows for appropriate consideration of the 
soldier's personal circumstances, together with consideration of the 
needs of the Army. If confirmed, I will undertake an assessment of this 
system to determine whether changes should be made.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Force?
    Answer. It is my understanding that the value of the IRR is its 
ability to provide individual replacements for deploying units and to 
provide soldiers to support short-term missions throughout the Army. 
The IRR has allowed the Army to meet critical requirements within 
mobilizing Army Reserve and Army National Guard units.
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. First, let me say that I am extremely proud of our Reserve 
component servicemembers and their service to our Nation during this 
time of war and transformation. Based upon my own experience as an 
officer in the National Guard, I believe that all components of the 
total force must be prepared to deploy at any time. If confirmed I will 
assess the effectiveness of reporting on the medical and dental 
readiness and to evaluate the need for policy changes and increased 
oversight.
    Question. How would you improve upon the Army's ability to produce 
a healthy and fit Reserve component?
    Answer. I am advised that the Army has comprised a multi-
disciplinary task force to address and promote Comprehensive Soldier 
Fitness across all components. If confirmed, I look forward to learning 
more about the Comprehensive Soldier Fitness program, particularly as 
it applies to the Reserve component, and working with leaders across 
the Army to implement it.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) which you would seek to address if confirmed as Assistant 
Secretary of the Army for Manpower and Reserve Affairs?
    Answer. Undoubtedly, lessons learned from throughout OEF/OIF will 
enhance the Army's ability to plan and execute ongoing and future 
missions. If confirmed, I will seek out and examine these lessons 
learned, with a focus on their application to manpower and Reserve 
affairs matters and apply them to the challenges and complexities of 
our ongoing contingency operations.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in recent years and 
recommendations of the Commission on the National Guard and Reserves 
have proposed numerous changes to the roles and responsibilities of the 
National Guard and Reserves. Several of the proposed changes have been 
implemented, and numerous others are under consideration.
    How do you assess the changes in the roles, mission, and 
authorities of the Chief of the National Guard Bureau and the Director 
of the Army National Guard?
    Answer. I believe that the changes that have been made thus far to 
enhance, clarify, and refine the roles missions and authorities of the 
Director of the Army National Guard (DARNG) have been effective. If 
confirmed, I will study the additional proposals under consideration 
and determine whether they are appropriate.
    Question. In your view, do the current Army processes for planning, 
programming, and budgeting sufficiently address the requirements of the 
Army National Guard? What is the appropriate role of the Chief of the 
National Guard Bureau in this regard?
    Answer. The Army National Guard is an integral part of the Army and 
has representation in all the Program Evaluation Groups (PEGs) that 
inform the process including Manning, Training, Organizing, Equipping, 
Sustaining, and Installations. The Army National Guard also has 
representatives in all Army staff sections to ensure that Army National 
Guard requirements and priorities are integrated into the budgeting 
process.
    I believe that in his advisory role to the Secretary of the Army 
and the Chief of Staff of the Army, the Chief, National Guard Bureau 
(CNGB) supports the Army planning, programming, and budgeting process.
              tricare fee increases for military retirees
    Question. Secretary Gates recently told officers at the Air War 
College that ``health care is eating the (Defense) Department alive.''
    Do you agree with the Secretary's assessment?
    Answer. Yes.
    Question. What is your view of the need for increased beneficiary 
payments in reducing overall health care costs to the Department?
    Answer. I am advised that costs have grown due to many factors: 
increased utilization by a mobilized RC force, expansion of benefits to 
support basic health care needs and that of more severely wounded 
soldier and their families, increased use by retiree beneficiaries, 
health inflation, and finally no change in TRICARE premiums in the last 
10 years. It is my understanding that a sound medical benefit program 
directly impacts retention of soldiers and their families. If 
confirmed, I would support a DOD review of the current beneficiary 
payment structure to ensure that future benefit costs are sustainable.
    Question. What other reforms in infrastructure, benefits, or 
benefit management, if any, do you think should be examined in order to 
control the costs of military health care?
    Answer. It is my understanding that to a great extent, the costs of 
military health care are subject to prevailing rates for labor, 
equipment and supplies within the health care industry. If confirmed, I 
will study this issue further and work with the other military 
departments and DOD to determine the best structure for the future.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continues to soar and is becoming an ever 
increasing portion of the DOD budget.
    If confirmed, what actions will you take to control the rise in 
personnel costs and entitlement spending?
    Answer. I have been advised that the military departments have 
limited authority to reduce overall personnel costs and entitlement 
spending. If I am confirmed, I will ensure adequate oversight through 
processes/procedures and audit reviews to provide early warning 
regarding the costs and effects of proposed new military pays or 
benefits.
    Question. If confirmed, what actions will you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. As is the case with regard to change in any large 
organization, military personnel changes take time to execute and 
implement throughout the force. In order to avoid unnecessary changes, 
if confirmed, I will work closely within the Army and DOD to accurately 
budget, and then will monitor execution, strength, and incentives, to 
ensure the Army remains in balance.
                        stress on army families
    Question. Army families have been under great stress since 2001 as 
a result of multiple and lengthy deployments in OIF and OEF.
    In your view, what are the key indicators of the stress on Army 
families at this time?
    Answer. I recognize that soldiers and their families have made and 
continue to make significant personal sacrifices in support of our 
Nation. If confirmed, I will ensure that the Army remains committed to 
providing soldiers and families with a quality of life commensurate 
with their service. It is my understanding that the Army monitors a 
number of indicators, and Army families continue to demonstrate how 
resilient they are. However, after experiencing soldier absences during 
deployments of varying duration and frequency, often with less time 
between them than needed to truly reset, families have indicated a need 
for: expanded support for their children; greater access to health care 
resources; more robust family programs and services; additional 
education and employment opportunities; and available, quality housing.
    Question. If confirmed, what will you do to address these key 
indicators?
    Answer. It is my understanding that the Army Family Covenant 
formalizes senior leadership commitment and addresses the following key 
areas for families: standardizing and funding existing family programs 
and services; increased accessibility and quality of health care; 
improving soldier and family housing; ensuring excellence in schools, 
youth services, and child care; and expanding education and employment 
opportunities for family members. If confirmed, I would exercise 
oversight of the execution of the key soldier and family programs and 
services, keep an ear to the ground to ensure the Army meets the needs 
of its people, and identify funding requirements to continue efforts 
that are critical to the sustainment of an All-Volunteer Force.
    Question. If confirmed, what will you do to address these key 
indicators?
    Answer. If confirmed, I would exercise oversight of the execution 
of the key soldier and family programs and services, keep an ear to the 
ground to ensure the Army meets the needs of its people, and identify 
funding requirements to continue efforts that are critical to the 
sustainment of an All-Volunteer Force.
    Question. What do you consider to be the most important family 
readiness issues in the Army?
    Answer. Family readiness issues vary by family, but one commonality 
among all families is the need for information and communication. To 
meet this critical need, I am advised that Family Readiness Groups have 
been established to provide important support and assistance and a 
network of communication among the family members, the chain of 
command, and community resources.
    Additionally, Army OneSource, the Army's online portal for family 
support information, programs, and services, provides a comprehensive 
multi-component approach for community support and services to meet the 
diverse needs of all soldiers and families.
                            family readiness
    Question. If confirmed, how would you address family readiness 
needs in light of global rebasing, BRAC, continuing deployments, and 
the growth of the Army?
    Answer. Military families make extraordinary sacrifices as their 
loved ones advance the cause of freedom around the world. Military 
families have set aside careers, interrupted their education, and when 
living far from a military base, struggled to locate child care equal 
to the price and quality available at military installations. The Army 
must recognize those sacrifices and deliver quality programs and 
services that geographically dispersed and frequently relocating 
families must endure.
    I am informed that on October 8, 2007, Secretary Geren unveiled the 
Army Family Covenant, a commitment to provide soldiers and their 
families--Active, Guard, and Reserve--a quality of life commensurate 
with their level of service and sacrifice to the Nation. I fully 
support the Covenant's commitment to soldiers and families and, if 
confirmed, will continue to improve family readiness through the Family 
Covenant.
    Question. If confirmed, how would you ensure support for Reserve 
component families, particularly those who do not reside near an 
active-duty military installation, related to mobilization, deployment, 
and family readiness?
    Answer. Family readiness is a very important issue to me. The Army 
Family Covenant commits the Army to improve family readiness--in both 
the Active and Reserve components--by standardizing family programs and 
services, increasing accessibility to health care; improving soldier 
and family housing; ensuring excellence in schools, youth and child 
services; and expanding education and employment opportunities for 
family members. The Soldier Family Action Plan provides the roadmap to 
implement the Army Family Covenant commitment and improve and/or 
address gaps in existing soldier and family programs and services.
    Question. In your view, what progress has been made, and what 
actions need to be taken in the Army to provide increased employment 
opportunities for military spouses?
    Answer. I am extremely appreciative of the undaunted support of 
military spouses to our soldiers and am aware of the importance of 
supporting employment opportunities for military spouses. If confirmed, 
I will continue to pursue the initiatives that have been set in place 
to benefit military families during this troubled economic era.
                     support for the single soldier
    Question. While the percentage of married soldiers has steadily 
increased, a substantial portion of soldiers, especially young 
soldiers, are single.
    What are the unique support needs of single soldiers, especially 
those returning from combat?
    Answer. It is my understanding that the needs of single soldiers, 
especially those returning from deployments, may differ from the needs 
of soldiers with spouses and children. I have been informed that in the 
past few years, the Army has made significant investments in single 
soldier barracks and programs to mitigate the stress of deployment and 
improve single soldier readiness.
    Question. If confirmed, what would you do to address these needs?
    Answer. If confirmed, I will review Army's soldier support programs 
designed to improve the quality of life for all soldiers--Active and 
Reserve component, single and married, with a view toward ensuring that 
these program are effective in meeting the specific needs of each 
group.
                   national security personnel system
    Question. Section 1106 of the National Defense Authorization Act 
for Fiscal Year 2008 restored the collective bargaining rights of 
civilian employees included in the National Security Personnel System 
(NSPS) established by DOD pursuant to section 9902 of title 5, U.S.C. 
Under section 1106, the Department retains the authority to establish a 
new performance management system (including pay for performance) and 
streamlined practices for hiring and promotion of civilian employees. 
Senior DOD officials have stated that they do not intend to expand NSPS 
to include employees in bargaining units that are represented by 
employee unions.
    What is your view of the NSPS system, as currently constituted?
    Answer. I understand the NSPS's key features were to support a 
streamlined and flexible civilian compensation, staffing, 
classification, and performance management system essential to 
effective management of a mission-oriented and results-driven civilian 
workforce that are vital to the success of DOD missions. I understand 
that DOD and the Office of Personnel Management (OPM) are currently 
conducting a comprehensive evaluation of the NSPS system. If confirmed, 
I look forward to working with DOD and OPM to ensure an optimum system.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS system?
    Answer. As a general principle, I support pay-for-performance; an 
employee's compensation should be based on contribution to mission. If 
confirmed, I look forward to seeing the results of DOD and OPM's 
comprehensive evaluation of NSPS in order to work toward addressing any 
identified concerns.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. I am advised that the Department is challenged to meet 
increased civilian labor requirements in critical occupations and to 
develop human capital strategies to respond to these challenges. It is 
my understanding that there are situations where specialized hiring 
authorities are required in order to provide sufficient qualified 
applicants to meet mission needs. However, before making 
recommendations for additional authorities, I would want to ensure that 
managers fully understand the flexibilities and authorities currently 
available. If confirmed, I will ask managers to creatively and actively 
use available authorities and will explore the need for and use of 
direct and expedited hiring authorities to assist in achieving the 
Department's human capital objectives.
    Question. In your view, is it viable in the long run for DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. It is my understanding that DOD has a number of other 
personnel systems, such as Defense Civilian Intelligence Personnel 
System and that for non-appropriated fund personnel. If confirmed, I 
will work with DOD and OPM to assess the appropriate number and types 
of personnel systems for effective and efficient personnel management.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. It is my understanding that DOD, in conjunction with OPM, 
is planning to conduct a comprehensive evaluation of NSPS, as currently 
implemented. If confirmed, I would seek to ensure that the Army 
participates fully in this evaluation. Depending on the outcome of this 
evaluation, legislation and/or policy changes may be appropriate to 
ensure that NSPS is on track to achieve its full potential.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. It is my understanding that DOD, in conjunction with the 
Office of Personnel Management, is planning to conduct a comprehensive 
evaluation of NSPS, as currently implemented. If confirmed, I would 
seek to ensure that the Army participates fully in this evaluation. 
Depending on the outcome of this evaluation, regulatory changes may be 
appropriate to ensure that NSPS is on track to achieve its full 
potential.
      balance between civilian employees and contractor employees
    Question. In recent years, DOD and the Army have become 
increasingly reliant on services provided by contractors. Over the past 
8 years, DOD's civilian workforce has remained essentially unchanged in 
size. Over the same period, DOD's spending on contract services has 
more than doubled, with the estimated number of contractor employees 
working for the Department increasing from an estimated 730,000 in 
fiscal year 2000 to an estimated 1,550,000 in fiscal year 2007. As a 
result of the explosive growth in service contracts, contractors now 
play an integral role in the performance of functions that were once 
performed exclusively by government employees, including the management 
and oversight of weapons programs, the development of policies, the 
development of public relations strategies, and even the collection and 
analysis of intelligence. In many cases, contractor employees work in 
the same offices, serve on the same projects and task forces, and 
perform many of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Army?
    Answer. The information set forth in the committee's question 
presents cause for concern and warrants comprehensive examination. I 
agree with President Obama's government contracting memorandum of March 
4, 2009, directing the Federal Government to ensure that functions that 
are inherently governmental in nature are performed by executive 
agencies and are not outsourced. If confirmed, I would work with the 
Secretary of the Army, the Under Secretary, and leaders across the Army 
to assess this matter so as to ensure compliance with the law and with 
the President's policy.
    Question. In your view, has the Army become too reliant on 
contractors to perform its basic functions?
    Answer. As set forth above, I agree fully with President Obama's 
memorandum of March 4, 2009, directing the Federal Government to ensure 
that functions that are inherently governmental in nature are performed 
by executive agencies and are not outsourced. If confirmed, I would 
work with the Secretary of the Army, the Under Secretary, and leaders 
across the Army to assess this matter so as to ensure compliance with 
the law and with the President's policy.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interests of the Army?
    Answer. As I understand it, the Army may use personal services 
contracts only in limited circumstances, when specifically authorized 
by law and policy. If confirmed, I would work with the Secretary of the 
Army, the Under Secretary, and leaders across the Army to ensure 
compliance with applicable law and policy.
    Question. Do you believe that the Army should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. I support fully the principles and policies set forth in 
President Obama's memorandum of March 4, 2009. That memorandum directs 
the Office of Management and Budget, in coordination with the Secretary 
of Defense, among others, to develop and issue government-wide guidance 
to assist executive branch agencies in reviewing the propriety of 
existing contracts and to formulate corrective action when appropriate. 
I believe that any such review must include an appraisal of inherently 
governmental functions and other critical government functions and how 
they are performed. If confirmed, I will support any such review and 
corrective action, particularly as it relates to matters under the 
purview of the Assistant Secretary of the Army (Manpower and Reserve 
Affairs).
    Question. If confirmed, will you work with other appropriate 
officials in the Army to address these issues?
    Answer. The issues you raise cross functional lines. Accordingly, I 
believe that a comprehensive effort involving stakeholders across the 
Army, DOD, the interagency, and Congress, will be required to address 
these issues in a comprehensive fashion. I pledge that if confirmed, I 
will work collaboratively with other Army officials on these matters, 
in furtherance of the best interests of the Army and DOD.
    Question. One reason for the explosive growth in DOD's contractor 
workforce has been the continuing limitation placed on the number of 
civilian employees of DOD. Rather than saving money as intended, this 
limitation has shifted all growth to contractor employees.
    Would you agree that the balance between civilian employees and 
contractor employees in performing Army functions should be determined 
by the best interests of the Army and not by artificial constraints on 
the number of civilian employees?
    Answer. Yes, I agree.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Army's civilian workforce, so 
that the Army can hire the number of employees most appropriate to 
accomplish its mission?
    Answer. I understand that by law, the Army is required to manage 
its civilian personnel solely on the basis of, and consistent with, the 
workload required to carry out the Army's functions and activities and 
the funds Congress appropriates to the Department. If confirmed, I 
would support all efforts to ensure compliance with the law and to 
remove inappropriate constraints on the size of the Army civilian 
workforce.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving soldiers in 
Iraq, Kuwait, and Afghanistan have been reported over the last several 
years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
Army failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their 
charges.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of sexual assaults 
the medical, psychological, and legal help that they need?
    Answer. I have been advised that the Army goes to great lengths to 
ensure appropriate levels of support are available to our deployed 
soldiers, including medical, psychological, and legal support. While I 
have not been fully briefed on all Army initiatives, I understand that 
the Army has taken significant steps to improve the assistance to 
victims of all sexual assaults, with enhanced recognition of the 
special circumstances that apply to deployments. I have been advised, 
for example, that for the past 3 years, the Army has had in place a 
comprehensive Sexual Assault Prevention and Response Program. I am 
informed that under this program, the Army requires every unit, 
brigade-sized and higher, to appoint and train a deployable Sexual 
Assault Response Coordinator and requires every battalion to appoint 
and train two Unit Victim Advocates. If confirmed, I will study this 
matter in greater depth with a view to ensuring that the Army continues 
to take appropriate steps to aid victims of sexual assault, both in 
garrison and in deployed locations.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults at home stations as well as deployed 
locations?
    Answer. In my opinion, the Army has taken several extremely 
important steps in its campaign to prevent sexual assaults both at home 
stations and deployed locations. For instance, I have been advised that 
the Army launched a new comprehensive sexual assault prevention 
campaign in 2008: the ``I. A.M. Strong'' program in which the letters 
I, A, and M stand for Intervene-Act-Motivate. The ``I. A.M. Strong'' 
program features soldiers as influential role models providing peer-to-
peer messages to encourage other soldiers to take action to promote a 
positive command climate in which sexual assault is not acceptable. If 
confirmed, I will continue these vital initiatives and assess whether 
additional steps should be taken.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. Based upon the information I have been provided to date, it 
appears that the Army is committed to ensuring that it has trained 
personnel and resources in place to investigate and respond to 
allegations of sexual assault. I have been advised that the Army 
continues to emphasize victim services and response capabilities. I 
have also been advised that the Army intends to hire and place 
additional special investigators and prosecutors at Army installations 
with the highest occurrences of sexual assault and to add examiners to 
the U.S. Army Criminal Investigation Laboratory. If confirmed, I will 
assess whether additional steps should be taken to support victims and 
hold offenders accountable.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. I have been advised that the Army has focused both on 
eliminating sexual assault from its ranks and on victim response--both 
key elements of an effective sexual assault program. I have been 
advised that part of the focus on victim response was the 
implementation of confidential reporting (also called ``restricted'' 
reporting), which I understand allows sexual assault victims to 
disclose confidentially the details of their assault to specified 
individuals and receive medical treatment and counseling, without 
triggering the official investigative process. If confirmed, I will 
work with knowledgeable professionals to assess and ensure the 
continuation of effective Army programs.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Based on the information I have been provided to date, I am 
not aware of any problems with the manner in which confidential 
reporting procedures have been put into effect. If I am confirmed, I 
will closely monitor the Army's sexual assault response procedures to 
determine whether improvements are needed in the area of confidential 
reporting.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of Departmental efforts 
on sexual assault prevention and response?
    Answer. If confirmed, I will have an active role in the oversight 
and implementation of the Army's Sexual Harassment/Assault Response and 
Prevention (SHARP) Program. I will work with the Secretary and the 
Chief of Staff to ensure the Army's SHARP program continues to receive 
the appropriate level of supervision and support.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Army regarding religious 
practices in the military?
    Answer. I have been informed that the Army's policies support 
religious tolerance and respect. It appears that Army and DOD 
regulations provide commanders and other leaders with ample guidance 
regarding the free exercise of religion in the Army. Army policies 
provide detailed guidance on the important responsibilities of 
commanders and leaders in this regard. It is my understanding that 
these policies are consistent with the First Amendment.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular articles 
of faith?
    Answer. I have been informed that the Army places a high value on 
the rights of soldiers to observe the tenets of their respective 
religious faiths. I have been advised that the Army will approve 
requests for accommodation of religious practice, to include the wear 
of particular articles of faith, unless the accommodation will have an 
adverse impact on unit readiness, individual readiness, unit cohesion, 
morale, discipline, safety, and health. It is my understanding that 
Army policies are consistent with the First Amendment.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I understand that Army policies require chaplains to 
support all unit personnel, regardless of their beliefs.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. I have been advised that, during mandatory official 
functions, chaplains are not compelled to offer prayers that are 
inconsistent with their faith, but are expected to remain sensitive to 
the pluralistic Army and society they serve. It is my understanding 
that these policies are consistent with the First Amendment.
                     united states military academy
    Question. What is your assessment of the policies and procedures at 
the United States Military Academy to prevent and respond appropriately 
to sexual assaults and sexual harassment and to ensure essential 
oversight?
    Answer. I have been informed that the United States Military 
Academy continues to institutionalize prevention strategies designed to 
end sexual harassment and violence by providing consistent policy, 
removing barriers to victim reporting, ensuring accessible care, and 
providing comprehensive education and training to all personnel. I am 
advised that the Superintendent personally chairs the monthly Sexual 
Assault Review Board, which provides executive oversight of all aspects 
of the Academy's Sexual Harassment/Assault Response and Prevention 
program. If confirmed, I will continue these initiatives and assess 
whether any additional steps should be taken.
    Question. What is your assessment of the policies and procedures at 
the United States Military Academy to ensure religious tolerance and 
respect?
    Answer. It is my understanding that the Chief of Chaplains (CCH) is 
responsible for religious support activities Army wide, to include at 
the USMA, and that CCH policies and procedures support religious 
tolerance and respect. It is my understanding that these policies are 
consistent with the First Amendment.
                           suicide prevention
    Question. The committee is concerned about the increasing rate of 
suicides in the Army.
    In your view, what is the cause of this surge in suicides?
    Answer. It is my understanding that the increase in suicides in the 
Army is likely not due to any single cause. Although there are 
recognized suicide risk factors, such as deployments, that are unique 
to Army life, it appears that risk factors such as relationship, 
financial, and legal problems also play a significant role.
    Question. What is your assessment of the Army's response to this 
increase in suicides?
    Answer. It is my understanding that the Army has taken a 
comprehensive, strategic approach to mitigating suicidal and high-risk 
behavior. In my view, this approach is the best way to address the 
problem of suicides by improving the mental, physical, and emotional 
health of soldiers, and by taking steps to reduce personal risk; a 
reduction in suicides should follow. If confirmed, I will fully support 
suicide prevention and intervention efforts.
    Question. The Army recently signed an agreement with the National 
Institutes of Health to perform a 5-year study on suicides in the Army. 
If confirmed, what actions would you suggest the Army take to enhance 
its suicide prevention program while the study is ongoing?
    Answer. I appreciate and share the committee's sense of urgency in 
addressing issues of suicide prevention and intervention. If confirmed, 
I will work with the leadership of the Army to assess all available 
options to enhance the Army's suicide prevention program while the 
National Institute of Health study is ongoing.
                            women in combat
    Question. What is your understanding of the conclusions and lessons 
that have been learned about the feasibility of current policies 
regarding women in combat from Operation Iraqi Freedom and Operation 
Enduring Freedom and what is your assessment of the Army's compliance 
with the requirements of law relating to women in combat?
    Answer. It is my understanding that the Army is in compliance with 
the requirements of law relating to women in combat. It is also my 
understanding that Army's transformation to modular units took into 
account and is in compliance with the current DOD assignment policy for 
women. Women have and will continue to be an integral part of our Army 
team, performing exceptionally well in all specialties and positions 
open to them.
    Question. In your view, should the current policy prohibiting the 
assignment of women to ground combat units be revised to reflect 
changing roles for female soldiers and the changing nature of warfare?
    Answer. If I am confirmed and after careful study and deliberation, 
that there is a need to seek a change to the policy, I will provide the 
Secretary with cogent advice regarding the changes sought and their 
potential impact on the manpower and Reserve affairs of the Army.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
DOD on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel. More recently, Congress 
authorized incentive pay for members of precommissioning programs to 
study critical foreign languages.
    In your view, what should be the priorities of the Federal 
Government in expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. In my view, our Nation's current and future involvement in 
overseas contingency operations will rely heavily on both foreign 
language skills and cultural knowledge. The Army, as well as other 
government agencies, should focus on increasing foreign language and 
cultural awareness skills across their entire force as well as in its 
language specialists (Foreign Area Officers, Civil Affairs, Special 
Forces, linguists, etc.). These skills will allow us to strengthen and 
multiply our forces' capabilities across the full operational spectrum. 
Further, I am aware that two of the best Foreign Language schools in 
the Federal Government exist in the Defense and State departments
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. I have been advised that the Army is in the initial stages 
of conducting a Foreign Language Capabilities Based Assessment; this 
joint effort will analyze and identify critical capabilities required 
to support DOD operations in conventional and irregular warfare as well 
as contingency operations. If confirmed, I would ensure that policies 
involving recruiting, training and mobilization are reviewed and 
adjusted accordingly to meet the validated foreign language needs of 
the operational environment.
    Question. What is your assessment of an appropriate time frame 
within which results can be realized in this critical area?
    Answer. I have been advised that the timelines in the initial 
Defense Language Transformation Roadmap have already been met and 
fulfilled with exception of a couple initiatives. It is critical that 
the Army continues to look ahead to meet the needs of the operational 
commanders. These foreign language needs are ever changing, as the 
challenges of overseas contingency operations take us into regions of 
diverse and low-density languages. I have been advised that the Army is 
finalizing a Culture and Foreign Language Strategy that will outline a 
holistic approach to the development of cultural and foreign language 
training.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are required 
to be assigned to follow-on positions in their Services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the value of the Legislative Fellows 
program to the Army and the utilization of officers who have served as 
legislative fellows?
    Answer. It is my understanding that the Fellowship program has been 
a valuable program that provides participants an understanding of the 
complexities of congressional operations and Congress's role in the 
process of government as a whole. Fellowships help participants gain an 
understanding and appreciation for the strategic relationship between 
the Army and Congress. I understand that the Army carefully evaluates 
fellows' post-fellowship assignment, taking into account each fellow's 
recent experience with Congress as well as duty specialty and past 
experiences. The Army has a large requirement for personnel with 
legislative experience at many levels of command and the fellows 
trained each year help fill those needs.
      defense integrated military human resources system (dimhrs)
    Question. The Department and the Services are moving toward 
adoption of DIMHRS as a cross-service, fully integrated personnel and 
pay system. Under the proposed timeline, the Army is the first in line 
to launch DIMHRS, with the Air Force, Navy, and Marine Corps to follow. 
Recent reports indicate technical difficulties will postpone the Army's 
launch date.
    What is the status of the Army's implementation of DIMHRS? What is 
your assessment of the need for an integrated, cross-service personnel 
and pay system?
    Answer. I have not been informed of the specific status of Army's 
implementation of the DIMHRS, however, it is my understanding that once 
fully implemented, this program will substantially improve the accuracy 
and efficiency of our ability to manage our personnel across DOD.
    Question. If confirmed, what changes, if any, would you recommend 
to the implementation schedule and process currently in place?
    Answer. If confirmed, I will carefully review the implementation 
plan and associated milestones. If my review identifies any weakness, I 
will make appropriate recommendations, after cross-Service 
coordination, to the responsible officials.
                            gi bill benefits
    Question. Last year, Congress passed the Post-9/11 Veterans 
Educational Assistance Act that created enhanced educational benefits 
for servicemembers who have served at least 90 days on active duty 
since September 11. The maximum benefit would roughly cover the cost of 
a college education at any public university in the country.
    What is your assessment of the effect of the act on recruiting and 
retention of servicemembers?
    Answer. It is my understanding that the new post-September 11 GI 
Bill is designed to enhance the Army's recruiting efforts in that it 
will assist the Army in targeting that population of young adults who 
desire to attend college but cannot afford to do so at the current 
time. This benefit will open up opportunities for them to achieve their 
educational goals. The impact of this benefit on retention will require 
careful monitoring, but the provision in the new program that allows 
career servicemembers to share or transfer their GI Bill benefits with 
immediate family members may mitigate any negative retention impacts.
    Question. What is your understanding of the sufficiency of the 
implementation plan for the transferability provisions contained in the 
act?
    Answer. I have been informed that the Army is working closely with 
DOD on the implementation of this new program and that DOD will publish 
its implementing policies in the near future. If confirmed, I will 
continue this important work and ensure that the Army's implementation 
of this program is well executed, consistent with published DOD 
guidelines.
              quadrennial review of military compensation
    Question. The Department recently completed work on the 10th 
Quadrennial Review of Military Compensation (QRMC), releasing Volume I 
of its report in February 2008 and Volume II in July 2008. Among other 
recommendations, the QRMC proposes a new defined benefit retirement 
plan that more resembles the benefits available under the Federal 
Employee Retirement System than the current military retirement 
benefit; increasing TRICARE fees for retirees; and the adoption of 
dependent care and flexible spending accounts for servicemembers.
    What is your assessment of the QRMC recommendations, particularly 
the proposed new defined retirement plan?
    Answer. Reductions in current entitlements and benefits could 
impact the morale of the current force and weaken future recruiting and 
retention efforts. Proposed changes in military retirement entitlements 
and benefits must be thoroughly reviewed to fully understand these 
impacts. If I am confirmed, I will be mindful that our military forces, 
who are often called upon to fight under extremely arduous conditions, 
should receive the pay and entitlements promised them and that they 
deserve.
                       senior executive workforce
    Question. What is your vision for the management and development of 
the Army senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. The Army should carefully manage and develop the senior 
executive workforce to meet the evolving work force challenges facing 
the Department. With transformation, members of the senior executive 
service are increasingly being looked to as military replacements in 
critically important areas of acquisition, financial management, and 
the scientific and technical fields. To support this effort, I 
understand the Army's senior executive program focuses on the 
recruitment, assignment, and development of adaptive, multi-skilled 
senior civilian leaders and that the current senior executive program 
includes periodic education and development opportunities and 
performance based evaluations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                   direct hire authority at army labs
    1. Senator Reed. Mr. Lamont, section 1108 of the National Defense 
Authorization Act for Fiscal Year 2009 permitted the defense 
demonstration laboratories to exercise direct hire for a limited number 
of senior level scientists and engineers. On December 16, 2008, that 
authority was delegated to the individual Services without restriction 
on further delegation. On March 3, 2009, the Navy had effectively 
delegated that authority to the laboratory directors and by mid-March 
one of the Navy laboratories had actually hired approximately a dozen 
senior scientists and engineers. To the committee's knowledge, the 
authority, which had been delegated to the Army, still remains unused 
within the office of the Secretary of the Army. This is a very valuable 
tool, permitting the laboratory directors to compete effectively with 
private industry in the hiring of senior people. If you are confirmed, 
do you intend to implement this statute and to delegate this authority 
to the laboratory directors?
    Mr. Lamont. Yes, I fully support the use of this authority. The 
authority provides an additional recruitment tool to fill critical 
scientific and engineering positions. The Secretary of the Army 
delegated this authority to me in late May. On June 2, 2009, I 
delegated the authority to the three Army Commanders (U.S. Army 
Materiel Command, U.S. Army Medical Command, and U.S. Army Corps of 
Engineers) with oversight of the six Army personnel demonstration 
laboratories and authorized further delegation of the authority 
directly to the Laboratory Directors.

           establishing personnel demo programs at army labs
    2. Senator Reed. Mr. Lamont, the laboratory personnel demonstration 
program has proven to be a successful personnel management system for 
the defense research laboratories. It is ideally suited to attract and 
retain the type of key personnel necessary if our defense laboratories 
are to maintain their technological preeminence. There are at least 
four Army laboratories that have indicated a desire to be part of the 
lab demo personnel program. Two (the Natick Soldier Research 
Development and Engineering Center and the Edgewood Chemical and 
Biological Center) have already made application and two others (Tank 
and Automotive Research Development and Engineering Center and the 
Armament Research Development and Engineering Center) would like to 
adopt the demo personnel system but are currently in the National 
Security Personnel System (NSPS). It is the committee's understanding 
the Army Research, Development and Engineering Command (RDECOM) 
supports these requests. If confirmed, would you expedite the movement 
of these Army laboratories into the demo system?
    Mr. Lamont. Yes, however, statutory relief is needed to expand 
beyond the five RDECOM subordinate elements covered by the current 
laboratory personnel demonstration program to include, not only the 
Tank and Automotive Research, Development and Engineering Center and 
the Armament Research, Development and Engineering Center; but also the 
Simulation and Training Technology Center and the RDECOM Headquarters. 
This will help eliminate several of the multiple personnel systems 
(NSPS, Acquisition Demo, General Schedule, and Wage Grade) currently 
affecting RDECOM civilian personnel scattered throughout the command. 
This will foster and promote the development and acceleration of 
innovative technology and sound engineering solutions. Any statutory 
relief that would permit RDECOM to fold its eligible personnel into 
laboratory demo personnel systems would promote efficiency and cost 
savings, and more importantly promote research, development, test, and 
evaluation and science and technology business processes to improve 
practices associated with getting technology to the field in a shorter 
period of time and in support of the War fighter.

     exclusion of army labs from national security personnel system
    3. Senator Reed. Mr. Lamont, this committee, on a bipartisan basis, 
has continually been concerned that artificial limitations on the 
ability of our defense laboratories to discharge their mission be 
removed. It is essential that these laboratories be able to hire, 
compensate, and retain the employees they need to discharge their 
mission and to compete successfully with private industry for such 
talent. In this regard, would you support the permanent exclusion of 
the lab demos from possible inclusion in the NSPS?
    Mr. Lamont. I would not favor a permanent exclusion. The law 
pertaining to the Defense Laboratories' inclusion in NSPS states that 
the laboratories are excluded from coverage until October 1, 2011; and 
that after October 1, 2011, NSPS would apply only to the extent that 
the Secretary of Defense determines that the flexibilities provided by 
NSPS are greater than those the laboratories have under section 342 of 
the National Defense Authorization Act for Fiscal Year 1995, Public Law 
103-337. As such, the Department and Army would prefer to retain the 
flexibility to apply NSPS to the laboratories, if NSPS provides greater 
flexibilities than currently provided under section 342. The Army 
recognizes the critical role the defense laboratories play in 
supporting the national security mission. As such, retaining the 
existing statutory language provides the maximum flexibility to ensure 
the laboratories have the authorities they need to attract, 
competitively compensate, and retain a high quality, high performing 
workforce.
                                 ______
                                 
    [The nomination reference of Thomas R. Lamont follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 27, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Thomas R. Lamont, of Illinois, to be an Assistant Secretary of the 
Army, vice Ronald J. James.
                                 ______
                                 
    [The biographical sketch of Thomas R. Lamont, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch by Thomas R. Lamont
    Thomas R. Lamont, Nominee for Assistant Secretary of the Army for 
Manpower and Reserve Affairs, Department of the Army, Department of 
Defense. He is the former Chair of University of Illinois Board of 
Trustees and a longtime Springfield attorney and resident partner for 
the Chicago firms of Gordon & Glickson and Altheimer & Gray, and the 
Springfield firm of Brown, Hay & Stephens. He concentrated his practice 
in Government Law and Legislative Affairs.
    In the public arena, Mr. Lamont has served as executive director, 
Office of the State Attorney Appellate Prosecutor, Director of Civil 
Litigation in the Office of the Illinois Attorney General, executive 
director of the Illinois Board of Higher Education, and currently, as 
Special Counsel and Adjunct Professor of Law to the University of 
Illinois. In the mid-1970s, he served as a Counsel to the Speaker and 
the Illinois House Democratic Staff.
    In 1990, Mr. Lamont was elected to the University of Illinois Board 
of Trustees. In addition, he has served as a trustee of the State 
University Retirement System, a member of the Illinois Board of Higher 
Education, and on U.S. Senator Carol Mosely Braun's Judicial Advisory 
Committee.
    Mr. Lamont served in a variety of Judge Advocate positions in the 
Illinois Army National Guard for over 25 years. He culminated his 
career serving as the Illinois Staff Judge Advocate. He retired as a 
Colonel in 2007.
    Mr. Lamont received his bachelor's degree from Illinois State 
University in 1969 and earned his law degree from the University of 
Illinois College of Law in 1972.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Thomas R. 
Lamont in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Ray Lamont.

    2. Position to which nominated:
    Assistant Secretary of the Army for Manpower and Reserve Affairs.

    3. Date of nomination:
    April 27, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 8, 1947; Jacksonville, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Bridget Anne Later (now Bridget L. Lamont).

    7. Names and ages of children:
    Michael Thomas Lamont, 28.
    Jeffrey Stephen Lamont (deceased).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Virginia (IL) High School, 1961-1965.
    Illinois State University, Normal, IL, 1965-1969, B.S., 1969.
    University of Illinois, Urbana, IL, 1969-1972, JD, 1972.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Nov. 2005-present, Special Counsel and Adjunct Professor of Law, 
University of Illinois; Springfield, IL.
    Aug. 2004-Nov. 2005, Executive Director (interim) Illinois Board of 
Higher Education; Springfield, IL.
    Feb. 2002-Aug. 2004, Partner, Brown, Hay & Stephens, Attorneys at 
Law, Springfield, IL.
    Feb. 1998-Feb. 2002, Partner, Altheimer & Gray, Attorneys at Law, 
Springfield and Chicago, IL.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Judge Advocate, Illinois Army National Guard, 1982-2007.
    Member University of Illinois Board of Trustees, 1990-2003.
    Chair, University of Illinois Board of Trustees 1992-1993, 1995-
1997.
    Trustee, State Universities Retirement System, 1992-1995.
    Member, Executive Comm., Illinois State University Alumni 
Association, 2007-present.
    U.S. Senator Alan Dixon's Military Academy Appointments Committee, 
1985-1992.
    U.S. Senator Carol Mosely Braun's Judicial Advisory Committee, 
1992-1996.
    Executive Director, State's Attorneys Appellate Prosecutor's 
Commission, 1979-1981.
    Division Head, Illinois Attorney General's Office, 1983-1987.
    Staff Attorney, Illinois Legislative Reference Bureau, 1972-1973.
    Staff Attorney/Committee Counsel, Illinois State House of 
Representatives, 1973-1976.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, Academic Development, Inc. (non-compensated).
    Member, Executive Committee, Illinois State University Alumni 
Association.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See Question 11 above. In addition, I hold the following 
memberships:

        <bullet> Trustee, YMCA, Springfield, IL
        <bullet> Member, Sangamon County Bar Association
        <bullet> Member, Illinois State Bar Association
        <bullet> Member, Military Law Committee, Illinois State Bar 
        Association
        <bullet> Member, Pritzker Military Library

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Democratic candidate and elected office holder to the position of 
Trustee, University of Illinois, 1990-2003.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

03/04..............................  Committee to Elect Jay       $150
                                      Hoffman.
03/04..............................  Sangamon County              $200
                                      Democrats.
05/04..............................  Citizens for Londrigan       $100
06/04..............................  Sangamon County              $150
                                      Democrats.
08/04..............................  Friends of Dick Durbin       $100
01/05..............................  Sangamon County              $100
                                      Democrats.
03/05..............................  Friends of Dick Durbin       $100
04/05..............................  Friends of Mike              $150
                                      Madigan.
06/05..............................  Friends of Dick Durbin       $250
06/06..............................  Friends of Dick Durbin       $500
06/06..............................  Friends of Tammy             $100
                                      Duckworth.
08/06..............................  Friends of Dick Durbin       $500
10/06..............................  Friends of Dick Durbin       $150
10/06..............................  Friends of Dick Durbin       $100
04/07..............................  Sangamon County              $150
                                      Chairman's Club.
04/07..............................  Friends of Dick Durbin       $200
12/07..............................  Joseph McMenimen for         $500
                                      Congress.
01/08..............................  Friends of Dick Durbin       $400
01/08..............................  Obama for America.....       $250
06/08..............................  Friends of Dick Durbin       $500
07/08..............................  Obama for America.....       $250
09/08..............................  Citizens for Callahan        $100
                                      for Congress.
10/08..............................  Sangamon County              $100
                                      Democrats.
10/08..............................  Obama for America.....       $250
10/08..............................  Obama for America.....       $100
03/09..............................  Douglas Whitley for          $500
                                      Illinois Governor.
 


    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Distinguished Alumnus--University of Illinois College of Law
    Resolution of Distinguished Service--Illinois Board of Higher 
Education, 2004
    Resolution of Distinguished Service--University of Illinois, 2006
    Military Medals:

        <bullet> Distinguished Service Medal (IL)
        <bullet> Legion of Merit (IL)
        <bullet> Meritorious Service Medal (1 OLC)
        <bullet> Army Commendation Medal
        <bullet> Army Achievement Medal (2 OLC)
        <bullet> Army Reserve Components Achievement Medal
        <bullet> National Defense Service Medal
        <bullet> Armed Forces Reserve Medal
        <bullet> Army Service Ribbon

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Power and Authority of the Attorney General's Office,'' 
Administrative Law Handbook, Illinois Institute for Continuing Legal 
Education (1986).
    ``Getting Involved In the Legislative Process,'' Small Business 
Reports, Vol. 13, no. 9; (November 1988).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Thomas R. Lamont.
    This 11th day of May, 2009.

    [The nomination of Thomas R. Lamont was reported to the 
Senate by Chairman Levin on May 14, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 18, 2009.]
                              ----------                              

    [Prepared questions submitted to Charles A. Blanchard by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this time I am unaware of any reason to amend the 
Goldwater-Nichols Act. If I am confirmed and I identify areas that I 
believe merit changes, I will propose those changes through the 
established process.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my prior answer.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Air Force?
    Answer. The duties and functions of the General Counsel are 
determined and assigned by the Secretary of the Air Force. The General 
Counsel provides legal advice and guidance to the Secretary, the Under 
Secretary, the Assistant Secretaries, their staffs, and other offices 
within the Office of the Secretary, as well as to the Chief of Staff 
and the rest of the Air Staff. The General Counsel also provides legal 
services throughout the entire Department in a variety of disciplines 
including fiscal law, ethics, dispute resolution, contract law, 
environmental law, international law, intellectual property law, real 
property law, personnel law, labor law, and litigation. As the chief 
legal officer of the Department of the Air Force, the General Counsel 
determines the controlling legal positions of the Department of the Air 
Force. The General Counsel also serves as the Designated Agency Ethics 
Official, the Suspension and Debarring Official for the Department of 
the Air Force, and exercises oversight of intelligence and other 
sensitive activities and investigations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe that my education and over 20 years of practice--
in both public service and private practice--has well prepared me for 
the challenges of this office.
    I received a Bachelors of Science degree (with honors) from Lewis & 
Clark College, where I was awarded the Rena Ratte Award given to the 
most outstanding graduating senior. After graduating from college, I 
attended Harvard Law School and the Harvard Kennedy School of 
Government, where I received both a J.D. and a Master of Public Policy 
in 1985. I graduated first in my class at Harvard Law School, and 
served as one of two Articles Editors at the Harvard Law Review. I 
clerked for Judge Harry Edwards of the U.S. Court of Appeals for the 
District of Columbia and Justice Sandra Day O'Connor on the U.S. 
Supreme Court.
    After serving as an Associate Independent Counsel in the Office of 
Independent Counsel James C. McKay, in 1988, I returned to Phoenix, AZ, 
and joined the law firm of Brown & Bain, which subsequently merged with 
Perkins Coie, my present firm. I became a partner at the firm in 1996, 
and my practice has focused on complex commercial litigation, antitrust 
law, state constitutional law and election law.
    My work in private practice has been interrupted by several years 
in public service. While still an associate at Brown & Bain, I served 
as a member of the Arizona State Senate from 1991-1995, where I chaired 
the Judiciary Committee and also served as Vice Chair of the 
Environment Committee. In 1997, I left the firm and became the Chief 
Legal Counsel for the White House Office of National Drug Control 
Policy, which was under the leadership of General (Ret.) Barry 
McCaffrey.
    For purposes of the position for which I am nominated, my most 
relevant experience was as General Counsel of the Army from 1999 until 
2001.
    I returned to private practice in Arizona in 2001, where I also 
serve as Adjunct Professor of Law at the Arizona State University 
Sandra D. O'Connor College of Law, where I have taught National 
Security Law and Election Law.
    I believe that my experience as the chief legal counsel for two 
government agencies, especially my service as General Counsel of the 
Army, as well as my experience in private practice at a national law 
firm, have prepared me for the challenging and diverse legal issues 
that will face the Department of the Air Force.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Air Force?
    Answer. I believe I have the necessary legal training, experience 
and leadership abilities to be the General Counsel. This is especially 
true given my experience as the Army General Counsel for 2 years. I am 
also a firm believer, however, that the best lawyers work hard to 
completely understand the operations of their client. If confirmed, I 
will benefit from the extraordinary talent, expertise and experience of 
the civilian and military lawyers in the Department as I broaden my 
understanding of the issues the Air Force faces every day.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed, I anticipate Secretary Donley will expect me 
to provide timely, accurate, and candid legal advice and counsel, 
ensuring compliance with the law and the protection of the legal 
prerogatives of the Department. I expect the duties and functions of 
the office will cover the wide range of legal issues and 
responsibilities prescribed by the Secretary. I anticipate the 
Secretary would expect me to manage the General Counsel's Office 
efficiently and effectively. Additionally, I anticipate the Secretary 
would expect me to foster an atmosphere of professionalism and 
responsiveness regarding all legal matters and services while working 
with the Office of The Judge Advocate General, the General Counsels of 
the Department of Defense (DOD) and the other military departments, as 
well as the legal staffs of other government agencies.
    Question. In carrying out your duties, how will you work with the 
General Counsel of DOD?
    Answer. The General Counsel of DOD is the Chief Legal Officer and 
final legal authority for DOD. Although there is no direct reporting 
relationship to the General Counsel of DOD, Jeh Johnson has made clear 
in his testimony before this Committee and his actions in the 
Department, that he intends to work closely with the Service General 
Counsels. If confirmed, I anticipate having a close and professional 
relationship with Mr. Johnson, characterized by continuing 
consultation, communication, and cooperation on matters of mutual 
interest, in furtherance of the best interests of DOD.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Air Force?
    Answer. The challenges facing the Department of the Air Force as a 
whole, as well as DOD, will largely determine the challenges that will 
confront the General Counsel of the Air Force. Certainly both President 
Obama and Secretary Gates have made clear that acquisition reform will 
be a priority in the near term, and I expect that to be a priority for 
the General Counsel of the Air Force as well. Although the current 
environment makes it difficult to anticipate all specific legal 
questions, I also expect to confront issues relating to operational 
matters, intelligence, privatization initiatives, military and civilian 
personnel policies, and compliance with environmental laws. In 
addressing these challenges, I think it will be critically important 
that the Office of the General Counsel and the Office of The Judge 
Advocate General have a cooperative and professional partnership.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan on working closely with the Secretary, 
the Chief of Staff, The Judge Advocate General, and the talented and 
dedicated attorneys in the Department of the Air Force to candidly 
evaluate the challenges and to ensure responsive and accurate legal 
services are provided to meet and address these challenges. In 
addition, if confirmed, I will work to adequately resource and expertly 
staff the Air Force legal community, in order to guarantee decision 
makers at all levels access to the best legal advice possible.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Air Force?
    Answer. If confirmed, my foremost priority will be to provide the 
Air Force timely, accurate, and candid legal advice, ensuring 
compliance with the law and protection of the legal prerogatives of the 
Air Force. It is imperative that the Air Force has the legal support 
necessary to build and maintain the very best air, space and cyberspace 
capabilities possible.
              relationship with the judge advocate general
    Question. In carrying out your duties, if you are confirmed, how 
will you work with The Judge Advocate General of the Air Force?
    Answer. As General Counsel of the Army from 1999 to 2001, I enjoyed 
an excellent working relationship with The Judge Advocate General's 
Corps that resulted in the delivery of high quality legal services to 
the Army leadership. I learned that civilian and military lawyers bring 
unique and vital experiences and expertise to the table, and that the 
final legal advice given to the client benefited greatly from our close 
working relationship. If confirmed, I will work to establish a close 
professional relationship with The Judge Advocate General. Consultation 
on matters of mutual import and interest should characterize that 
relationship. It is imperative that the two offices work well together 
to provide the highest quality of legal support to the Department of 
the Air Force.
    Question. How are the legal responsibilities of the Department of 
the Air Force allocated between the General Counsel and The Judge 
Advocate General?
    Answer. My experience at the Army convinced me that it is critical 
that The Judge Advocate General and the General Counsel work as 
collaborative partners in proving the best possible legal services to 
our common client. If confirmed, I will make developing such a 
partnership a priority. The Secretary of the Air Force has designated 
the Air Force General Counsel as the chief legal officer of the 
Department of the Air Force. In recognition of the unique expertise and 
experiences provided by the Office of the General Counsel and The Judge 
Advocate General, both offices provide legal advice to the Secretary of 
the Air Force and other Department officials. In addition, The Judge 
Advocate General is responsible for the activities of The Judge 
Advocate General's Corps and is primarily responsible for providing 
legal advice and services regarding the Uniform Code of Military 
Justice. The law expressly prohibits interference with the ability of 
The Judge Advocate General to give independent legal advice to the 
Secretary of the Air Force. Even in the absence of that statutory 
requirement, I would welcome the expression of independent views on 
legal issues by The Judge Advocate General.
    Question. How will you ensure that legal opinions of your office 
will be available to Air Force attorneys, including judge advocates?
    Answer. It is my understanding that the majority of legal opinions 
provided to Air Force attorneys and judge advocates are published 
through a cooperative General Counsel and TJAG process. Close 
professional cooperation between the civilian and uniformed members of 
the Air Force's legal community is absolutely essential to ensure 
appropriate legal opinions issued by the Office of the Air Force 
General Counsel will be available to all Air Force attorneys and Judge 
Advocates, and vice versa.
    Question. In response to attempts within DOD to subordinate legal 
functions and authorities of The Judge Advocates General to the General 
Counsels of DOD and the Military Services, Congress enacted legislation 
prohibiting any officer or employee of DOD from interfering with the 
ability of The Judge Advocates General of the Military Services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs. Congress also required a study and review by outside 
experts of the relationships between the legal elements of each of the 
military departments.
    What is your view of the need for The Judge Advocate General of the 
Air Force to provide independent legal advice to the Secretary of the 
Air Force and the Chief of Staff of the Air Force?
    Answer. The Judge Advocate General's ability to provide independent 
legal advice has been statutorily recognized as essential to the 
effective delivery of legal services. I share that view. Uniformed 
attorneys bring another perspective and can provide insight and advice 
shaped by years of service throughout the Air Force.
    Question. What is your view of the responsibility of Air Force 
judge advocates to provide independent legal advice to military 
commanders?
    Answer. Air Force Judge Advocates have a critical responsibility to 
provide independent legal advice to commanders, given the missions they 
perform. I think that this is well stated by The Judge Advocate General 
Corps mission statement, which emphasizes the importance of 
professional, candid and independent legal advice.
    Question. If confirmed, would you propose any changes to the 
current relationships between the uniformed judge advocates and General 
Counsel?
    Answer. If confirmed, I will make improving the relationship 
between the General Counsel and The Judge Advocate General a top 
priority, to ensure the effective delivery of legal services to the 
Department of the Air Force.
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to The Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view your responsibilities in the performance of 
military justice matters with regard to The Judge Advocate General of 
the Air Force?
    Answer. The Judge Advocate General has the primary responsibility 
for providing legal advice and services regarding the Uniform Code of 
Military Justice and the administration of military discipline. Article 
6 of the Uniform Code of Military Justice requires The Judge Advocate 
General or senior members of his staff to make ``frequent inspections 
in the field'' in furtherance of his responsibility to supervise the 
administration of military justice. I will, if confirmed, consult with 
The Judge Advocate General on matters of mutual interest or concern 
relating to military justice, recognizing his statutory duties and 
special expertise in this area, and will provide advice to the 
Secretary of the Air Force as needed.
                attorney recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality attorneys and provide sufficient opportunity for advancement?
    Answer. If confirmed, I plan to work to maintain the Air Force's 
ability to obtain and retain the highest quality civilian and military 
attorneys both in the General Counsel's Office and The Judge Advocate 
General's Corps. If confirmed, I want to make Federal service as a 
civilian attorney in the Air Force as attractive and professionally 
rewarding as possible. I will also work with The Judge Advocate General 
to ensure the Air Force has the tools we need to continue to recruit 
and retain the best attorneys available.
    Question. In your view, does the Department of the Air Force have a 
sufficient number of attorneys to perform its missions?
    Answer. If confirmed, I will, in consultation with The Judge 
Advocate General, evaluate the adequacy of the numbers of attorneys in 
the Department of the Air Force to accomplish the Air Force's missions.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. While General Counsel of the Army, I worked closely with 
The Judge Advocate General to implement retention bonuses for military 
lawyers. My understanding is that this program was very effective in 
retaining outstanding military lawyers. I am not familiar with the full 
scope of the Air Force's programs for recruiting and retaining military 
and civilian attorneys, but if confirmed, in consultation with The 
Judge Advocate General, I will look at this area very carefully and 
support initiatives that enhance the Air Force's ability to recruit and 
retain the best legal talent available.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in helping 
DOD and the Department of the Air Force address legal issues regarding 
detainees?
    Answer. The legal issues regarding detainees are of critical 
importance to DOD and the Department of the Air Force. These issues 
need to be handled with great care, and with a clear focus on the rule 
of law. I understand that the Air Force Office of the General Counsel 
and the Office of The Judge Advocate General have representatives 
assisting the DOD General Counsel in responding to the President's 
executive orders in this area. If confirmed, I will work closely with 
the DOD General Counsel in executing the President's directives. 
Additionally, in consultation with The Judge Advocate General, I will 
provide advice to the Secretary regarding detainee issues affecting the 
Air Force, with particular focus on our obligation to treat all 
detainees humanely.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. Yes, this prohibition is in the best interest of the United 
States. Prohibiting the cruel, inhumane, or degrading treatment or 
punishment of individuals in our custody or under our physical control 
upholds our ideals and obligations, and reinforces our moral authority 
around the world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. I understand that considerable attention is being given to 
this issue within DOD. If confirmed, I will play an active part in 
ensuring the Department's implementing directives make clear what 
conduct is prohibited.
    Question. What role do you believe the General Counsel of the Air 
Force should play in the interpretation of this standard?
    Answer. The appropriate role of the General Counsel is to provide 
advice to the Secretary of the Air Force and his staff on policies that 
implement this standard. If confirmed, I will ensure Air Force 
implementation is consistent with the law.
    Question. What role do you believe The Judge Advocate General of 
the Air Force should play in the interpretation of this standard?
    Answer. The Judge Advocate General provides advice on policies that 
implement this standard. The Judge Advocate General should also 
continue to train and supervise the judge advocates in the field, who 
are instrumental in maintaining this standard.
    Question. If confirmed, will you take steps to ensure that all 
relevant Air Force directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. I will. The requirements of section 1403 and Common Article 
3 of the Geneva Conventions remain essential to maintaining a 
disciplined Air Force, bound by the Rule of Law.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, DOD 
Detainee Program, dated September 5, 2006?
    Answer. I do.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. This statute is intended to provide criminal sanctions for 
specific war crimes as provided under international law and also 
violations of the Uniform Code of Military Justice. Even apart from our 
obligations to prosecute these violations, however, the United States 
also has the obligation to ``take all measures necessary for the 
suppression'' of all other violations of the Geneva Conventions, even 
those that are not grave breaches, and I believe the Department must 
continue to hold military members accountable for violations of these 
standards as well. I think that this statute, in addition to robust and 
vigilant training of Airmen of our legal obligations, will protect 
against abusive treatment of foreign detainees in U.S. custody, as well 
as provide proper criminal sanctions against those who do not likewise 
secure reciprocal protection of U.S. detainees in foreign custody.
                     contractors on the battlefield
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. The extensive involvement of contractor employees in a 
broad array of activities--including security functions--has raised 
questions about the legal accountability of contractor employees for 
their actions.
    Do you believe that current DOD and Department of the Air Force 
regulations appropriately define and limit the scope of security 
functions that may be performed by contractors in an area of combat 
operations?
    Answer. It is my understanding that DOD instructions and 
procurement regulations that define the limit and scope of security 
functions are currently under review. Accordingly, it would be 
premature for me to offer an opinion at this time regarding whether 
current DOD and Department of the Air Force regulations on the subject 
are adequate.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. I have been advised that the Office of Management and 
Budget is leading an interagency working group to write definitions and 
criteria for sorting out the blended workforce and that the DOD is 
reviewing certain instructions in this area. Accordingly, it would be 
premature for me to offer specific changes to DOD or Department of the 
Air Force regulations until the results of these reviews are known.
    Question. Do you believe that current DOD and Department of the Air 
Force regulations appropriately define and limit the scope of 
contractor participation in the interrogation of detainees?
    Answer. It is my understanding that current DOD policy 
appropriately limits contractor participation in the interrogation of 
detainees. If confirmed, I will examine the Air Force implementation of 
these policies.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. I have no basis to propose any changes at this time.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons''.
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. I understand that support services that require substantial 
discretion or prudent judgment are inherently governmental, and that 
the likelihood that an individual will be required to resort to force, 
especially deadly force, and the degree to which an individual may be 
required to exercise force in public are important factors to consider 
in assessing whether a particular security mission is inherently 
governmental. Therefore, if I am confirmed, I am willing to examine 
this matter to ensure appropriate attention is given to the legal 
aspects of this issue.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. I understand that under DOD policy the direction and 
control of interrogations--to include the approval, supervision and 
oversight of interrogations, as well as the execution of those aspects 
of an interrogation that entail substantial discretion--are inherently 
governmental activities. Consequently, in my view, the Department 
should continue to assess the appropriateness of the contractor's role, 
if any, in interrogations.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, I will advise senior Air Force leadership 
regarding the functions that contractors may legally perform on the 
battlefield, and I will assist them in implementing policies regarding 
the use of contractors that are consistent with applicable law and DOD 
policy.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I understand that MEJA was intended to address the 
jurisdictional gap in U.S. law regarding criminal sanctions, as applied 
to civilians employed by or accompanying the Armed Forces outside the 
United States, members of the Armed Forces, and former members of the 
Armed Forces, including their dependents. In my opinion, MEJA provides 
an effective means of exercising extraterritorial criminal jurisdiction 
over contractor employees in Iraq, Afghanistan, and other areas of 
combat operations who engage in conduct that would constitute a felony-
level Federal crime in the United States.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. If confirmed, I will study this issue and assess what 
changes to MEJA may be appropriate, if any.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, I expect to play an active role in the 
development of any proposals to change MEJA. I would also coordinate 
closely with The Judge Advocate General in the development of any such 
proposals given the complementary and sometimes overlapping 
availability of jurisdiction under the Uniform Code of Military 
Justice.
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of the military courts 
under the Uniform Code of Military Justice to persons serving with or 
accompanying an armed force in the field during time of declared war or 
a contingency operation, such as our current operations in Iraq and 
Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. The UCMJ provides commanders the tools necessary to 
maintain good order and discipline and the morale, welfare and safety 
of all those under their jurisdiction during military operations. 
Because misconduct by contractors may undermine good order and 
discipline, Congress extended UCMJ jurisdiction over such individuals, 
and the Secretary of Defense, in turn, published guidance on the 
prudent exercise of such jurisdiction. This guidance ensures that the 
Department of Justice and the DOD each play an appropriate role in 
resolving whether, and under which system, jurisdiction might be better 
exercised in each potential case.
    Question. What is your view of the procedures agreed upon by DOD 
and the Department of Justice to reconcile jurisdictional 
responsibilities under MEJA and the UCMJ?
    Answer. I have not had an opportunity to review the procedures 
agreed upon by DOD and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ. If confirmed, 
I will, in coordination with The Judge Advocate General, assess the 
effectiveness of the procedures and whether further refinements of 
these procedures are necessary.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. At present, I am not aware of any specific provisions in 
need of change.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Air Force regarding religious 
practices in the military?
    Answer. It is my understanding that the Air Force has supported 
policies of religious tolerance and mutual respect. If confirmed, I 
would continue the Air Force's commitment to upholding the 
constitutional tenets of the ``free exercise'' and ``establishment'' 
clauses, and review policies as necessary to assure continued 
compliance with the First Amendment.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I have not had opportunity to review the Air Force's 
policies regarding free exercise of religion and other beliefs. If 
confirmed, I will study this issue to determine if changes in policy 
are necessary under the law.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. I understand that chaplains are not compelled to offer 
prayers that are inconsistent with their faith, but are expected to 
remain sensitive to the pluralistic Air Force and society they serve. 
In my opinion, such an approach strikes an appropriate balance given 
the diversity of religious views in the Air Force. If confirmed, I am 
willing to study this issue further to determine if changes in policy 
are necessary under the law.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. As General Counsel of the Army, I played a role in 
reviewing general officer nominations, and I understand that the role 
of the Air Force General Counsel is similar to that of the Army General 
Counsel. I understand that, for general officer promotions, the Office 
of the General Counsel reviews the following:

          a. Memoranda of Instruction that govern the conduct of 
        promotion selection boards and subsequent promotion selection 
        board reports.
          b. Adverse information that is not in an officer's official 
        military personnel file that may be presented to the promotion 
        selection board. I have been advised that this information is 
        reviewed to ensure it is accurate and comports with the 
        requirements of Title 10 such that the information is 
        ``substantiated, relevant information that could reasonably 
        affect the deliberations of the selection board.''
          c. Adverse information related to general officers. In 
        general officer cases, the standard for adverse information 
        that must be presented to a promotion selection board is ``any 
        credible information of an adverse nature.'' I have been 
        advised that the Office of the General Counsel participates in 
        a detailed screening process in which all credible information 
        related to officers whose records will be reviewed by a 
        promotion selection board for promotion to a general officer 
        grade. The process ensures that all adverse information is 
        properly identified for presentation to the promotion selection 
        board.
          d. Adverse information that becomes available after a 
        promotion selection board makes its recommendations. I have 
        been advised that the Office of the General Counsel provides 
        legal advice to the Secretary of the Air Force so that he may 
        determine whether a promotion review board should be convened 
        to consider whether to continue to support the promotion of the 
        considered officer or take steps to remove the officer from the 
        board report or promotion list.

    Question. What is your understanding of the role of the General 
Counsel of the Department of the Air Force in ensuring the legal 
sufficiency of statutory selection board processes?
    Answer. I understand that, prior to approval by the Secretary of 
the Air Force, all Memoranda of Instructions for officer promotion 
selection boards are reviewed by the Office of the General Counsel to 
ensure the Secretary's instructions conform to statutes and accurately 
reflect his guidance regarding attributes necessary for service in the 
next grade. All reports of promotion selection boards are reviewed by 
the Office of the General Counsel prior to final action on the report 
by the Secretary. The General Counsel must determine that the Air Force 
has met applicable statutory standards, DOD direction and Secretary of 
the Air Force guidelines and that individual selection board reports 
conform to the law. The General Counsel must advise the Secretary of 
the Air Force of any case in which a selection board report fails to 
adhere to the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Air Force and the Office of the Assistant Secretary of 
the Air Force (Manpower and Reserve Affairs), the General Counsel helps 
to ensure that Air Force promotion policies properly implement 
applicable laws and regulations and are fairly applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Air Force in reviewing and providing potentially 
adverse information pertaining to a nomination to the Senate Armed 
Services Committee?
    Answer. From my service as General Counsel of the Army, I 
understand the importance of ensuring that substantiated or potentially 
adverse information is reported to the Senate Armed Services Committee 
in a timely, accurate, and comprehensive manner. It is my understanding 
that under current Department of the Air Force practice, the General 
Counsel's office reviews each selection board report, as well as 
Departmental communications to the Committee, the President, and the 
Secretary of Defense concerning nominations, to ensure that the reports 
and communications comply in form and substance with law and 
regulation. If confirmed, I will ensure that the General Counsel's 
office gives special attention to cases of nominees with substantiated 
or potentially adverse information, in order to ensure that such 
information is reported to the Senate Armed Services Committee in a 
timely, accurate, and comprehensible manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force, the Assistant Secretary of the Air Force (Manpower and 
Reserve Affairs), and other senior Department leaders to ensure that 
the Department of the Air Force military personnel policies are 
formulated and applied uniformly, fairly, and in accordance with 
applicable laws and regulations. If confirmed, it will be my duty to 
take appropriate action if I become aware of an individual case in 
which military personnel policies were not fairly and lawfully applied. 
If confirmed, I will coordinate with the Assistant Secretary of the Air 
Force (Manpower and Reserve Affairs), who exercises overall supervision 
of the Air Force Review Boards Agency, regarding the legal sufficiency 
of the determinations made by the Air Force Board for the Correction of 
Military Records. In addition, I am aware of and fully respect the 
independent role that the Air Force Board for the Correction of 
Military Records plays in the correction of military records.
             sexual assault prevention and response policy
    Question. Numerous cases of sexual misconduct involving airmen and 
cadets have been reported over the last several years. Many victims and 
their advocates contend that they were victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
military treatment. They asserted that the military failed to respond 
appropriately by providing basic services, including medical attention 
and criminal investigations of their charges.
    What is your understanding of the resources and programs the Air 
Force has in place in deployed locations to offer victims of serious 
sexual assaults the medical, psychological, and legal help they need?
    Answer. This is an extremely important issue for the Air Force and, 
if confirmed, I will focus significant attention on this area. I am not 
fully aware of all Air Force initiatives or resources, but I understand 
that the Air Force has recently taken steps to improve the assistance 
to all victims of sexual assaults, with enhanced recognition of the 
special circumstances that apply to deployments. If confirmed, in 
consultation with The Judge Advocate General and other senior leaders, 
I will study this matter in greater depth with a view to ensuring the 
Air Force continues to take appropriate steps to provide medical, 
psychological, and legal help to airmen who are victims of sexual 
assault.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults on female soldiers at their home 
stations and when they are deployed?
    Answer. I do not have sufficient information to evaluate the steps 
taken by the Air Force to prevent sexual assaults on female airmen. I 
understand the importance of this issue, however, and if confirmed, I 
will assess whether additional steps need to be taken. If confirmed, I 
look forward to working closely with Air Force leaders on all 
initiatives to prevent sexual assault.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and respond to 
allegations of sexual assault?
    Answer. Presently, I am not familiar with all of the Air Force 
training and resources to investigate and respond to allegations of 
sexual assault. If confirmed, I will become familiar with them and will 
assess whether additional steps should be taken to support victims and 
hold offenders accountable.
                        whistleblower protection
    Question. Section 1034, title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will work with The Judge Advocate General 
to ensure that military leaders are fully and accurately advised of the 
whistleblower protections accorded by law and regulation, and that they 
understand their legal responsibilities in this important area. In 
addition, if I become aware of any particular cases involving 
reprisals, I will ensure that they are addressed in accordance with the 
law. Whistleblower protections for military personnel are essential to 
the integrity of the Air Force, and merit serious attention by the 
General Counsel.
                 support to air force inspector general
    Question. What role, if any, do you think the General Counsel of 
the Air Force should have in reviewing the investigations and 
recommendations of the Air Force Inspector General?
    Answer. If confirmed, I will establish and maintain a close, 
professional relationship with the Inspector General, and will provide 
candid, independent, and objective legal advice. As part of my 
responsibility to review legal and policy issues arising from the Air 
Force intelligence and counterintelligence activities, I will advise 
the Inspector General concerning proper reporting of the Air Force 
intelligence oversight activities. Of course, given the Inspector 
General's mandate for independence and candor in advising the Secretary 
as to his investigative findings and recommendations, the Inspector 
General has final authority over matters within his functional purview.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career ladder, substantial training opportunities, and 
exposure to a broad spectrum of legal areas and problems. By contrast, 
civilian attorneys in the military departments normally do not have 
established career programs and may do the same work for many years, 
with promotion based solely upon longevity and vacancies.
    In your opinion, does the personnel management of civilian 
attorneys need changing? If so, what do you see as the major problems 
and what changes would you suggest?
    Answer. Comprehensive and deliberate professional development of 
career civilian attorneys and paralegals is an important building block 
to ensure the Air Force receives the highest quality legal services. I 
understand that in December 2006 the Air Force General Counsel and The 
Judge Advocate General formed a joint program to actively develop 
civilian legal personnel to meet current and future Air Force 
functional and leadership requirements. I am advised that, in 
accordance with the charter for this program, a Civilian Legal 
Community Policy Council composed of representatives of both 
organizations meets regularly to advance initiatives for the 
development of the Air Force civilian legal community. If confirmed, I 
will work closely with all of the entities affected by this issue to 
support the continuing and important efforts of the Policy Council and 
any other initiative deemed appropriate.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Air Force?
    Answer. The client of the General Counsel of the Department of the 
Air Force is the Department of the Air Force, acting through its 
authorized officials.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Air Force procurement programs are executed in accordance with the 
law and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force, the Assistant Secretary of the Air Force (Acquisition), and 
other senior officials to ensure the Department of the Air Force's 
acquisition and procurement programs are executed in accordance with 
applicable provisions of law, as well as DOD guidance. Participation by 
Air Force lawyers should start in the earliest stages of program 
development. They should seek out potential legal issues and, where 
appropriate, identify lawful alternative courses of action.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by Air 
Force personnel and by Air Force contractors?
    Answer. Ethics training, acquisition ethics training, and fostering 
a culture of ethics throughout the Air Force are paramount in creating 
an organizational climate that is sensitive to the need of avoiding 
conflicts of interest and that reacts appropriately when such issues 
arise. If confirmed, I will work closely with the Secretary of the Air 
Force, the Assistant Secretary of the Air Force (Acquisition), The 
Judge Advocate General, and other senior officials to promote an 
organizational climate that is sensitive to the need to avoid conflicts 
of interest and that reacts appropriately when specific issues arise. 
This also extends to ensuring that Air Force personnel adhere to the 
letter and spirit of the law relating to post-employment restrictions. 
I believe Air Force lawyers can make a significant contribution to 
these endeavors through provision of training, through early and 
sustained involvement in the Department's acquisition programs and 
procurement activities, and through continued instructional outreach to 
industry.
    Question. Allegations of fraud and abuse during contingency 
contracting in Iraq and Afghanistan have been wide-spread.
    What role should the General Counsel play in ensuring that Air 
Force personnel are properly trained in contingency contracting and are 
supervised in the performance of their duties?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force, the Assistant Secretary of the Air Force (Acquisition), The 
Judge Advocate General, and other senior officials to ensure the legal 
community continues to fully support training, policy development, and 
an ethical climate to promote the highest technical and ethical 
standards in our contingency contracting operations. I strongly support 
initiatives to adequately resource, train and equip contracting 
personnel to properly conduct contingency contracting, assuring 
vigilant stewardship of taxpayer dollars. Lastly, I would promote 
increased collaboration between our acquisition professionals, 
investigators, fraud counsel, and other stakeholders to ensure that we 
are doing everything we can to limit the opportunity for fraud, waste, 
and abuse in the contingency contracting process, and to correct those 
situations where there has been a breach.
             detecting organizational conflicts of interest
    Question. Organizational conflicts of interest have become a major 
concern with the growing use of private contractors being tasked to 
perform key functions that the services had formerly performed in-
house. This has been seen in cases in which highly qualified 
individuals who expect to be hired as government employees need a 
salary pending completion of the hiring process.
    What do you think the Air Force should do, and what should the 
General Counsel's role be, in ensuring that the Air Force identifies 
organizational conflicts of interests and takes the appropriate steps 
to avoid or mitigate them?
    Answer. If confirmed to serve as the General Counsel, I will work 
with Air Force senior leadership to educate our personnel to understand 
the circumstances that can lead to an organizational conflict of 
interest and to identify those circumstances at the earliest 
opportunity. I will help ensure that all circumstances of potential 
organizational conflicts are promptly addressed in a manner consistent 
with appropriate guidance. Our goals need to include avoidance of 
conflicting roles that might bias a contractor's judgment and 
prevention of circumstances that may result in an unfair competitive 
advantage.
    Question. What is your understanding of steps the Air Force has 
taken to address the problems created by delays in the hiring process 
under circumstances in which the Air Force intends to hire an 
individual into government service?
    Answer. I understand that Air Force leadership has engaged with the 
Office of Personnel Management, DOD and associated liaison offices to 
address factors which can delay hiring actions. If confirmed, I look 
forward to working with Air Force leadership to continue this effort to 
minimize or eliminate delays.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Air Force attorney or an Air Force Judge Advocate should take if 
the attorney becomes aware of improper activities by a Department of 
the Air Force official who has sought the attorney's legal advice and 
the official is unwilling to follow the attorney's advice?
    Answer. The attorney should immediately bring the matter to the 
attention of the attorney's supervisor and, if not satisfactorily 
resolved, to higher level supervisory lawyers or authorities in the 
chain of supervision or command.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed?
    Answer. I understand that government attorneys may participate in 
pro bono activities on their own time, consistent with statute, 
regulation, or other rule or guidelines. I also understand that 
specific guidance applicable to the JAG Corps permits pro bono work 
with supervisory approval so long as the representation does not occur 
on government time or at its expense, does not interfere with official 
duties, and does not create a conflict of interest or the appearance of 
a conflict of interest. Although I am not aware of the need to address 
pro bono activities, if confirmed, I would review the current policy 
with The Judge Advocate General.
    Question. In your view, do the laws, regulations and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Air Force provide adequate guidance?
    Answer. I understand that all DOD lawyers are required to be 
members in good standing of a State Bar and are therefore subject to 
the rules of professional responsibility of their particular 
jurisdiction. Lawyers engaged in litigation must also comply with the 
rules of the court in which they appear. All military and civilian 
lawyers in The Judge Advocate General's Corps must comply with the 
specific rules applicable to them. If confirmed, I will review the 
rules of professional responsibility applicable to Air Force lawyers to 
assess if changes are required.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of the Air Force in ensuring the integrity and proper 
functioning of the officer promotion process?
    Answer. I understand that, under title 10, U.S.C., the Secretary of 
the Air Force is responsible for the proper functioning of the 
Department of the Air Force promotion selection process. In addition to 
the legal review of memoranda of instruction and selection board 
reports to ensure they comport with statutory standards, DOD policy and 
Secretary of the Air Force guidance the Air Force General Counsel must 
also ensure the conduct of the board process conforms to all legal 
requirements. Additionally, the General Counsel must advise the 
Secretary of the Air Force of any case in which a selection board 
report or selection board process fails to adhere to the statutory 
standards, either generally or with regard to a particular officer 
being considered for promotion. In advising the Secretary of the Air 
Force and the Office of the Assistant Secretary of the Air Force 
(Manpower and Reserve Affairs), the General Counsel helps to ensure 
that Air Force promotion policies properly implement applicable laws 
and regulations and are fairly applied.
          litigation involving the department of the air force
    Question. In your opinion, what is the relationship between the 
Department of the Air Force and the Department of Justice with respect 
to litigation involving DOD?
    Answer. The Department of Justice represents the Department of the 
Air Force in civil litigation. If confirmed, I will work with The Judge 
Advocate General to ensure the continuation of a collaborative 
relationship with the Department of Justice with respect to litigation 
involving the Department of the Air Force.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. It is my understanding that the Air Force's interests in 
civil litigation are effectively protected and defended by the 
Department of Justice. If confirmed, I will work with The Judge 
Advocate General to ensure that adequate resources are available to 
ensure that the Air Force is able to provide the appropriate level of 
support to the Department of Justice and protect the Air Force's 
interests in civil litigation in which the department is involved.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Air Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
                Question Submitted by Senator John Thune
                      training range encroachment
    1. Senator Thune. Mr. Blanchard, community encroachment has been an 
issue around Air Force bases for several years. As the size of 
surrounding communities increase, the number of complaints about 
aircraft operations often increases as well. The same can be said with 
respect to military training routes, military operations areas 
airspace, and training ranges. These complaints can instigate 
operational changes as well as airspace changes. While some of these 
changes make good common sense, others adversely affect aircrew 
training and combat readiness. In your opinion, does the Air Force have 
legal authority to prevent training range encroachment? If so, to what 
extent should the Air Force use this authority to help maintain its 
capacity for realistic training?
    Mr. Blanchard. The safety of our Airmen while carrying out their 
training and combat readiness missions is critical. To further this 
end, the Air Force has at its disposal a number of tools to manage 
encroachment and noise issues. The cooperation and support of 
surrounding communities is always the first choice. Development 
restriction in the form of zoning by municipalities and counties 
surrounding an installation is the most common method to prevent land 
uses incompatible with the mission. The Air Force uses its Air 
Installation Compatible Use Zone process and Joint Land Use Studies as 
means to work with municipalities and counties to promote compatible 
uses surrounding installations and ranges. In addition, the Office of 
the Secretary of Defense makes funding available each year to military 
installations under the Readiness and Environmental Protection 
Initiative (REPI) to enter into agreements with eligible partners to 
purchase surrounding property rights from willing sellers to prevent 
encroachment and protect species habitat. The Air Force is currently 
using REPI program authority and funds at 10 different bases to acquire 
conservation or other restrictive easements to help address 
encroachment issues.
                                 ______
                                 
    [The nomination reference of Charles A. Blanchard follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Charles A. Blanchard of Arizona, to be General Counsel of the 
Department of the Air Force, vice Mary L. Walker, resigned.
                                 ______
                                 
    [The biographical sketch of Charles A. Blanchard, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Charles A. Blanchard
    Charles A. Blanchard is a partner at the Phoenix office of Perkins 
Coie Brown & Bain, with a practice that focuses on complex commercial 
litigation, antitrust, State constitutional law, and election law. In 
addition to his career at Perkins Coie, Blanchard's over 20 year legal 
career includes many years of public service, included positions as the 
chief attorney at two Federal governmental agencies.
    Most recently, from 1999 until 2001, he served as General Counsel 
of the Army, where he acted as the top legal officer to the Department 
of the Army. From 1997 until 1999, he served as Chief Counsel to the 
White House Office of National Drug Control Policy during the tenure of 
Barry McCaffrey as Drug Czar. Other government experience includes two 
terms as a member of the Arizona State Senate, work as an Associate 
Independent Counsel in the Office of James C. McKay, law clerk for D.C. 
Circuit Judge Harry Edwards and law clerk for U.S. Supreme Court 
Justice Sandra Day O'Connor. He also served as the Interim Homeland 
Security Director for Governor Janet Napolitano in 2003.
    Blanchard is a 1985 graduate of Harvard Law School (where he 
graduated first in his class) and the Harvard Kennedy School of 
Government (where he earned a Masters in Public Policy). He graduated 
with a Bachelor of Science from Lewis & Clark College in Portland, OR, 
in 1981. Blanchard is active in the community and has served on 
numerous Boards and Commissions, including the Governor's Regulatory 
Review Council, Children's Action Alliance, and the Arizona Foundation 
for Legal Services and Education. He lives in Phoenix, AZ, with his 
wife Allison and his 4 year old son Teddy.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Charles A. 
Blanchard in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles Alan Blanchard.

    2. Position to which nominated:
    General Counsel, U.S. Department of the Air Force.

    3. Date of nomination:
    April 30, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 14, 1959; San Diego, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Allison Jo Major.

    7. Names and ages of children:
    Charles Edward Blanchard (Teddy); age 4.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University (1981-1985), JD/MPP magna cum laude (June 1985).
    Lewis & Clark College (1977-1981), Bachelor of Science (Chemistry) 
(June 1981).
    Sprague High School (1974-1977), High School Diploma (June 1977).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Partner, Perkins Coie Brown & Bain, PA; Phoenix, AZ; (March 2001-
present).
    General Counsel, U.S. Army; Arlington, VA; (August 1999-January 
2001).
    Director, Office of Legal Counsel, Office of National Drug Control 
Policy; Washington, DC (August 1997-August 1999).

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Consultant (SGE), Department of Defense Pentagon Transition Office 
(April 14, 2009-present).
    Council Member, Governor's Regulatory Review Council; Phoenix, AZ 
(February 2004-January 2009).
    Interim Homeland Security Director (consultant) Office of Governor 
Janet Napolitano (January 2003-May 2003).
    Arizona State Senator (1991-1995).
    Associate Independent Counsel, Office of Independent Counsel James 
C. McKay; Washington, DC (June 1987-April 1988).
    Law Clerk, U.S. Supreme Court Justice Sandra Day O'Connor (July 
1986-June 1987).
    Law Clerk, Judge Harry T. Edwards, U.S. Court of Appeals for the DC 
Court, Washington, DC (July 1985-July 1986).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner, Perkins Coie Brown & Bain PA
    Adjunct Professor, Sandra Day O'Connor School of Law, Arizona State 
University

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Vice President, Florence Immigrant & Refugee Rights Project
    Vice President, Children's Action Alliance
    Board Member, Arizona Foundation for Legal Services and Education
    Member, Arizona Bar Association
    Member, Maricopa County Bar Association
    Member, American Bar Association
    Member, Nature Conservancy
    Member, Arizona Town Hall
    Member, Harvard Law School Alumni Association

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Candidate:
          Arizona State Senate (Democrat) (1990, 1992); U.S. Congress 
        (AZ CD1) (Democrat) (1994)

    Officer:
          State Committeeman, Arizona Democratic Party (1991-1995, 
        2003-2005).
          Precinct Committeeman, Arizona Democratic Party (1988-1995, 
        2003-2005).
          Delegate, Democratic National Convention (1992).
          Rules Committee, Democratic National Convention (1996).

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    In addition to the offices listed in (a) above, I have been outside 
legal counsel for the following committees:
          Arizona Democratic Party
          Ellen Simon for Congress
          Giffords for Congress
          Harry Mitchell for Congress
          Bob Lord for Congress

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Note: These are contributions made both by me and my wife:
    Al Franken for Senate
          01/10/2009; $100

    Arizona Democratic Party
          11/08/2005; $400
          04/24/2006; $1,000
          06/12/2007; $1,000
          12/12/2007; $250
          10/29/2008; $500

    Arizona List
          09/23/2004; $200
          04/18/2007; $100
          01/09/2008; $100
          09/18/2008; $200

    Arizona Senate 2006
          06/08/2006; $2,000

    Kerry Victory Fund
          06/12/2004; $2,000

    Committee to Elect Chad Campbell
          04/26/2005; $370

    Doug Allsworth for School Board
          09/16/2006; $500

    Bob Lord for Congress
          02/14/2007; $500
          12/22/2007; $500

    Ellen Simon for Congress
          09/21/2006; $1,000

    Friends of Tom Umberg
          03/10/2004; $500

    Georgians for Meade (Howard Meade--Member running for judge of 
Court of Appeals)
          03/14/2004; $500
          09/23/2007; $250

    Giffords for Congress
          01/03/2006; $1,000
          10/26/2006; $1,000
          06/12/2007; $200
          03/22/2008; $1,000

    Harry Mitchell for Congress
          09/22/2006; $1,000
          10/27/2006; $1,000
          04/05/2007; $1,000
          03/27/2008; $500
          07/02/2008; $1,000
          10/27/2008; $500

    Janet Napolitano (Governor) 2006
          03/03/2006; $120

    Keep It Clean
          07/06/2004; $250

    Kirkpatrick for Arizona
          03/22/2008; $500
          06/19/2008; $1,000
          07/23/2008; $500
          09/28/2007; $500
          10/27/2008; $500

    Kris Mayes 2004
          03/17/2004; $110

    Napolitano Office Account
          07/28/2005; $120

    Obama for America
          02/04/2008; $2,000
          03/26/2008; $300
          05/28/2008; $1,000
          09/04/2008; $2,300

    Obama Fund
          10/23/2008; $500

    Jose Cerda for Clerk (Cook County Clerk)
          12/24/2006; $500

    Pederson for Senate
          12/02/2005; $1,000
          09/29/2006; $1,000

    People for Grijalva
          04/16/2004; $250
          06/01/2005; $250

    Spitzer 2006
          06/01/2006; $500

    Tim Nelson for County Attorney
          05/08/2008; $780

    Warshaw for County Attorney, Maricopa County
          07/13/2004; $200

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Army Distinguished Service Award (2001)
    ONDCP Directors Award for Distinguished Service (1999)
    Governors Council on Highway Safety Awareness (1992)
    Toll Fellowship (Council of State Governments) (1993)
    Arizona Attorney General's Distinguished Service Award (1992)
    Fay Diploma (Top Student), Harvard Law School (1985)
    Rena Ratte Award (Top Student), Lewis & Clark College (1981)
    Winning Team, Ames Moot Court, Harvard Law School (1984)
    Marshall Scholar (1981) (declined)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    The New Deal Lawyer, 20 Harv. J. Leg. 678 (1983).
    Note, Restrictions on Bank Underwriting of Corporate Securities: A 
Proposal for More Permissive Regulations, 97 Harv. L. Rev. 720 (1984).
    ``Exclusionary Rule--Good Faith Exception: Massachusetts v. 
Sheppard and United States v. Leon,'' 98 Harv. L. Rev. 108 (November 
1984).
    Report of Independent Counsel, In re Edwin Meese III (July 5, 1988) 
(co-author).
    ``Riparian Areas: Protect Them for Our Future,'' The Arizona 
Republic (February 2, 1992).
    ``We need a plan to deal with crime, its causes,'' The Arizona 
Republic (October 17, 1993).
    ``Education Reform: Charter Schools Better Serve Kids,'' The 
Phoenix Gazette (June 15, 1994).
    ``Make a Commitment to Cut Teen Drug Use,'' Arizona Republic 
(August 27, 1998) [modified versions of this oped also published in 
Deseret News, The Oregonian, Tacoma News Tribune and Spokane 
Spokesman].
    ``Drugs, Crime, Prison, and Treatment'', Spectrum [quarterly 
publication of Council of State Governments] (Winter 1999).
    ``Boost Drug Treatment, Cut Crime: Failure to Invest Dooms 
Communities to Repeat Offenders,'' Arizona Daily Star (February 21, 
1999).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Charles A. Blanchard.
    This 11th day of May, 2009.

    [The nomination of Charles A. Blanchard was reported to the 
Senate by Chairman Levin on May 14, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 18, 2009.]

                                     


 
 NOMINATIONS OF ADM JAMES G. STAVRIDIS, USN, FOR REAPPOINTMENT TO THE 
GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. EUROPEAN COMMAND AND SUPREME 
   ALLIED COMMANDER, EUROPE; LT. GEN. DOUGLAS M. FRASER, USAF, TO BE 
   GENERAL AND COMMANDER, U.S. SOUTHERN COMMAND; AND LTG STANLEY A. 
 McCHRYSTAL, USA, TO BE GENERAL AND COMMANDER, INTERNATIONAL SECURITY 
        ASSISTANCE FORCE AND COMMANDER, U.S. FORCES, AFGHANISTAN

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, Webb, Udall, Hagan, McCain, Inhofe, 
Sessions, Chambliss, Graham, Thune, Wicker, and Collins.
    Also present: Senator Murkowski.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Ilona R. Cohen, counsel; Mark R. 
Jacobson, professional staff member; Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Gerald J. Leeling, counsel; William G.P. Monahan, 
counsel; Michael J. Noblet, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Richard H. Fontaine, Jr., deputy Republican staff director; 
Michael V. Kostiw, professional staff member; David M. Morriss, 
minority counsel; Richard F. Walsh, minority counsel; and Dana 
W. White, professional staff member.
    Staff assistants present: Christine G. Lang and Brian F. 
Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn A. Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Christopher Caple, assistant 
to Senator Bill Nelson; Patricia Hayes, assistant to Senator 
Bayh; Gordon I. Peterson, assistant to Senator Webb; Jennifer 
Barrett, assistant to Senator Udall; Roger Pena, assistant to 
Senator Hagan; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Adam G. Brake, assistant to Senator Graham; Jason Van Beek, 
assistant to Senator Thune; Dan Fisk and Brian W. Walsh, 
assistants to Senator Martinez; Erskine W. Wells III, assistant 
to Senator Wicker; and Chip Kennett, assistant to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider three military nominations: 
Admiral James Stavridis, nominated to be Commander, U.S. 
European Command (EUCOM) and Supreme Allied Commander, Europe; 
Lieutenant General Douglas Fraser, nominated to be general and 
to succeed Admiral Stavridis as Commander, U.S. Southern 
Command (SOUTHCOM), marking the first time that an Air Force 
general would take command of SOUTHCOM, if confirmed; and 
Lieutenant General Stanley McChrystal, nominated to be General 
and Commander, North Atlantic Treaty Organization (NATO) 
International Security Assistance Force (ISAF), and Commander, 
U.S. Forces, Afghanistan.
    On behalf of the committee, we want to thank each one of 
you for your service to our country, your willingness to 
continue to serve. We also want to acknowledge the sacrifices 
that you and your families have made along the way. The support 
that our military families provide is critical, and we want to 
do all that we can to support them.
    If confirmed, these three nominees will lead our military 
in meeting today's security concerns in their areas of 
responsibility, and preparing for tomorrow's. One of the most 
immediate challenges is implementing the President's new civil 
military strategy for Afghanistan and Pakistan. If confirmed, 
two of our witnesses, Admiral Stavridis and General McChrystal, 
will need to coordinate closely for that strategy to work. As 
Commander EUCOM and Supreme Allied Commander, Europe, Admiral 
Stavridis will need to work with our NATO and other European 
coalition partners to build the capabilities needed in 
Afghanistan and secure allied commitments to the NATO ISAF 
mission.
    Our European allies continue to provide the majority of the 
nearly 35,000 non-U.S. troops in Afghanistan, but only a 
portion are in the fight where the fight mainly is, in the 
south and east of Afghanistan. The NATO contribution in 
Afghanistan remains inadequate, even as President Obama has 
approved increasing the U.S. presence by some 21,000 soldiers, 
to a total U.S. force of 68,000 by the end of this summer.
    Moreover, Secretary Robert Gates testified recently that 
the NATO Afghan Army Trust Fund has received contributions of 
less than one-tenth of its target of 1 billion Euros from our 
NATO allies. Admiral Stavridis, we'd be interested in any 
thoughts that you may have as to how to get NATO and our other 
allies in Europe to do their share for the Afghanistan mission, 
whether by providing additional military resources, additional 
trainers for the absolutely critical task of growing the Afghan 
security forces faster, financial contributions to defray the 
costs of Afghanistan reconstruction, or providing civilian 
technical expertise to build the country's governance capacity.
    Another issue relative to European security relates to 
Russia. Vice President Joseph Biden and Secretary of State 
Hillary Clinton have called for resetting U.S.-Russian 
relations. I believe there are opportunities to find and build 
common security interests between the United States and Russia, 
including the development of a unified response to the threat 
of a nuclear-armed Iran.
    The President, Secretary Clinton, Secretary Gates, and 
National Security Advisor General Jim Jones have all commented 
positively about the prospects of the United States and Russia 
working on a common missile defense as a way of deterring 
Iran's nuclear ambitions. Senators Bill Nelson, Susan Collins, 
and I recently explored that possibility on our visit to 
Moscow, Prague, and Warsaw, and came back with some positive 
possibilities worth exploring.
    Admiral Stavridis, I invite your comments on whether a 
cooperative U.S.-Russian missile defense program could possibly 
change the overall dynamic in the region and might cause Iran 
to recalculate any nuclear weapons ambitions. We also would 
welcome comments that you might have on the potential for the 
NATO-Russia Council to serve as a useful forum for discussing 
such possible joint missile defense cooperation.
    General McChrystal, if you're confirmed, you would bring 
what Secretary Gates called ``fresh eyes'' to the task of 
commanding NATO's ISAF and U.S. forces, Afghanistan. 
Implementing the counterinsurgency approach outlined in the 
President's strategy will require significant coordination, not 
only between two chains of command, one reporting up to the 
NATO Supreme Allied Commander, Europe, and the other through 
U.S. Forces, Afghanistan, to General David Petraeus at the U.S. 
Central Command, but also to coordinate between the military 
and civilian components of the effort in Afghanistan.
    The next commander of ISAF and U.S. forces in Afghanistan 
will confront a myriad of challenges, including a resurgent 
Taliban, an effectively open border in the area between 
Kandahar, Afghanistan, and Quetta, Pakistan, over which border 
extremists come into Afghanistan and return to safe havens in 
Pakistan. In addition to that, there is crippling poverty and 
unchecked narcotics trafficking corrupting the government. All 
instruments of U.S. and coalition power, not just military 
force, but also diplomatic, economic, and legal tools, will be 
needed to turn the situation in Afghanistan around.
    General McChrystal, I also invite you this morning to 
clarify your understanding of U.S. standards for the treatment 
of detainees and to comment on allegations of detainee 
mistreatment by units under your command during your tenure as 
Commander of the Joint Special Operations Command from 2003 to 
2008. You may want to address both that issue and the Tillman 
matter in your opening statement. Both subjects were discussed 
in executive session of the Senate Armed Services Committee 
last year in connection with your nomination to your current 
position as Director of the Joint Staff.
    General Fraser, if confirmed, the challenges facing you in 
the western hemisphere may be different, but they are also 
complex. As a result of the relative success of Plan Colombia 
over the past decade, security has improved for Colombians; 
however, you will still be confronted by an illegal narcotics 
trade that is constantly adjusting its tactics in response to 
U.S. surveillance and counternarcotics efforts. As Admiral 
Stavridis can attest, the violence that shook Bogota 10 years 
ago is now challenging governments across Central America and 
Mexico. Countries like El Salvador, Guatemala, and Panama have 
now become the focal point of territorial battles for 
production sites and trafficking routes for drugs. The 
committee will be interested in hearing your views on this 
situation and how you intend to address this burgeoning 
challenge.
    In addition to addressing these issues, you'll also be in 
charge of developing our security relations with important 
allies. General Fraser, we look forward to hearing from you on 
these matters, and how you plan to build on the work of your 
predecessors.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming Admiral Stavridis, General McChrystal, and General 
Fraser, and congratulating them on their nominations. The 
importance of each of these positions to our national security 
can't be overstated.
    The recent fighting in Pakistan, coupled with our ongoing 
challenges in Afghanistan, underscore the high stakes our 
country faces in this theater. I support the long overdue 
change of course announced for Afghanistan earlier this year. 
The war there and in Pakistan is one that we can and must win. 
But, for years now we have been fighting without a clear 
strategy, with insufficient resources, and with less than total 
support of the Government of Pakistan. Now that we have a new 
strategy, I believe we must quickly follow up with the 
development of an integrated joint-agency civil-military 
campaign plan for all of Afghanistan and for the Pakistan 
border area.
    We also need to ensure that General David Rodriguez has the 
staff and resources he will need to conduct operational 
planning similar to the activities conducted by the Multi-
National Corps-Iraq.
    Finally, we must take every possible step to accelerate the 
growth of the Afghan security forces. The Afghan army is too 
small, and, even with the current projected end strengths of 
134,000, it will not be big enough to tackle the many security 
challenges at hand.
    At a minimum, we need to more than double the current size 
of the Afghan army to 160,000 troops and consider enlarging it 
to 200,000. The costs of this increase should not be borne by 
the United States alone, but by the international community. I 
look forward to hearing General McChrystal's thoughts on these 
aims, as well as your views on the need for a comprehensive 
civil-military campaign plan and for the establishment of a 
planning corps under General Rodriguez.
    Admiral Stavridis, you will play a critical role in 
marshaling NATO's efforts in Afghanistan and elsewhere. While I 
believe the United States should continue to encourage European 
troop contributions and press for reductions of caveats on 
their use, I also believe we should move away from stressing 
what Washington wants Europe to give and more toward 
encouraging what Europe is prepared to contribute.
    Many of our NATO allies, and other allies and partners 
outside NATO, including countries in Asia and the Gulf, are 
fully capable of contributing many badly needed resources. As 
Secretary Gates noted in remarks over the weekend, in many 
areas, noncombat-related contributions, from police training to 
a trust fund for the Afghan National Army (ANA), will be as 
critical to long-term success, as more European troops on the 
ground. Admiral Stavridis, we will look to you for new 
approaches in these areas that will increase NATO involvement.
    America's future is fundamentally tied to the stability, 
prosperity, and security of our southern neighbors. The recent 
uptick in violence along our southern border is perhaps the 
chief example of the interplay between our own security and 
that of our southern neighbors.
    Today, Phoenix, Arizona, is the kidnapping capital of 
America, and gangs that were born on the streets of El Salvador 
and Nicaragua wreak havoc on our Nation's cities and towns.
    Through the Merida Initiative with Mexico and via our 
various SOUTHCOM security partnerships throughout the 
hemisphere, we must help our southern neighbors help themselves 
in a concerted effort to fight crime, stop drug trafficking, 
and provide security for their people. General Fraser, I look 
forward to hearing your thoughts on how SOUTHCOM is addressing 
these problems.
    I thank our nominees for their service, and I look forward 
to their testimony today, and rapid confirmation.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Before we call on our witnesses for their opening 
statements and to introduce their families, one of our dear 
colleagues, Senator Murkowski, is here, and we will call on her 
to make an introduction.
    Senator Murkowski.

 STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE STATE 
                           OF ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, Ranking Member 
McCain. Thank you.
    I am truly honored this morning to sit before you to 
introduce Lieutenant General Douglas Fraser. General Fraser is 
accompanied by his wife Rena, his son, Ian, and his daughter, 
Heather, and, I also understand, her husband, as well.
    I have had the pleasure and the privilege to come to know, 
not only General Fraser, but his family, through the time that 
he has spent up north in Alaska. He comes before the committee 
this morning for confirmation to the rank of general, capping 
off a 34-plus-year Air Force career. That career officially 
began in 1975, upon his graduation from the Air Force Academy. 
Following graduation, General Fraser served in Oklahoma, 
Arizona, New Mexico, Texas, Alabama, Idaho, Hawaii, Colorado, 
Washington, DC, in addition to Alaska. So, I think those 
children are certainly well traveled, there. He's also served 
in Germany and Japan. But, General Fraser calls Alaska home, 
and we certainly could not be prouder.
    General Fraser served two memorable assignments in Alaska, 
the first from January 2000 to April 2002, when he commanded 
the 3rd Wing at Elmendorf Air Force Base there in Anchorage. It 
was during those years that I represented the airmen of 
Elmendorf in the Alaska legislature. I became familiar with 
General Fraser's leadership, both on base and off. General 
Fraser and his wife, Rena, were more than ambassadors for the 
Air Force, they were truly forces of good for our whole 
community.
    In October 2005, General Fraser returned to Elmendorf after 
two assignments in Colorado. He headed up the Joint Alaskan 
Command, where he remained until April 2008. It was during this 
time period where our Armed Forces were really coming to grips 
with the challenge of treating men and women returning from 
Iraq with post-traumatic stress disorder and traumatic brain 
injuries. General Fraser was truly committed to addressing the 
challenges. He was involved in a roundtable that we had 
convened to discuss how we deal with the healthcare facilities, 
how our ability to deal with the challenges could be handled. 
At the time I learned about an innovative project that the Air 
Force medical wing at Elmendorf would undertake, it was called 
a Hometown Healing. The Air Force medical wing determined that 
it was capable of treating wounded warriors in Alaska. It 
sought out Alaskans who were recovering in the lower 48 
hospitals, brought them back to Alaska, and this occurred under 
General Fraser's watch at the Alaska Command, and it's 
something that we are very proud of. That Elmendorf hospital 
was subsequently voted the best in the Air Force.
    Alaska is known across the globe for the high level of 
support that it provides to members of the armed services that 
are stationed in our State. This doesn't happen by coincidence. 
It's the product of strong partnerships between the senior 
leaders on Alaska's installations and the leaders of our Alaska 
communities, partnerships that each senior leader improves upon 
during his tenure and passes along to his successors. The Air 
Force has sent to Alaska some of its very best, people like the 
current Air Force Chief of Staff, General Norton Schwartz; and 
the Commander of Pacific Air Forces, General Howie Chandler. I 
would say that, General Fraser, you stand shoulder-to-shoulder 
with these senior leaders, in terms of support for Alaska's 
military communities.
    While I have to express some disappointment that General 
Fraser's next assignment is going to take him away from the 
Pacific, that's where the Nation needs him, and that's where he 
will go. Wherever General Fraser goes, I know that he will be 
an inspiration to the troops that he leads, a strong force in 
his community, and a military leader of the highest qualities. 
I strongly endorse his confirmation.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Murkowski. A 
very significant introduction. We're delighted you were able to 
join us today.
    Let me now call on our three witnesses, in the following 
order, for their opening comments: Admiral Stavridis, General 
Fraser, and General McChrystal.

     STATEMENT OF ADM JAMES G. STAVRIDIS, USN, NOMINEE FOR 
REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. 
     EUROPEAN COMMAND AND SUPREME ALLIED COMMANDER, EUROPE

    Admiral Stavridis. Chairman Levin, Ranking Member McCain, 
members of the committee, I'd like to begin by simply saying 
how proud I am to be here with General Fraser and General 
McChrystal. I couldn't ask for a better Army-context battle 
buddy, Air Force-context wingman, and the Navy would say 
shipmates. We're glad to be here together.
    I'd just make the comment, as you look at the three of us 
here, it really is a joint Goldwater-Nichols kind of panel--
Army, Navy, Air Force--and also, Skeet Fraser, nominated as the 
first airman to go to SOUTHCOM, I'm lucky enough to be 
nominated as the first admiral to go to Europe; Stan 
McChrystal, a product of real improvements in legislative 
quality built into special operations, all came out of this 
Congress, came out of Goldwater-Nichols. So, we're proud to be 
here, and I thank you for taking the time to hear us.
    I'm here with my family--my wife, Laura, right here behind 
me, my childhood sweetheart. We lived together in Europe when 
we were both children, so the prospect of going back to Europe 
is extremely appealing to both of us. We have two daughters 
ourselves now, who are both here, Christina, a proud graduate 
of the University of Virginia, works out at Google in San 
Francisco, my daughter, Julia, makes us very proud by signing 
up, this year, for the Navy Reserve Officer Training Corps 
program, going to the University of Texas at Austin. I'm very 
proud and lucky to have the family here with me.
    I am personally, obviously, very honored and humbled by the 
President's nomination and the Secretary's recommendation for 
this position. I have a fair amount of background in Europe. In 
addition to having lived there as a child, I've traveled 
throughout Europe extensively over the years. I've operated 
with NATO off of Haiti, the Balkans, in the Gulf; and studied 
NATO as part of my academic work that the Navy sent me to at 
the Fletcher School, years ago. I believe in the transatlantic 
alliance. I think it's an important one, and if confirmed, I 
hope to be a positive force, as Senator McCain was just talking 
about, and the Chairman, in convincing our allies to continue 
to stand shoulder-to-shoulder with us in important missions 
throughout the world, and, in particular, in Afghanistan.
    My approach will be, as it has been at SOUTHCOM for the 
last 3 years, to be collegial, to be oriented toward 
international solutions, multilateral approaches, and, above 
all, interagency and whole of government. These are challenging 
times in Europe, they're challenging times in Afghanistan and 
the world. If confirmed, I will do my best.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Admiral, thank you so much.
    General Fraser?

 STATEMENT OF LT. GEN. DOUGLAS M. FRASER, USAF, NOMINEE TO BE 
          GENERAL AND COMMANDER, U.S. SOUTHERN COMMAND

    General Fraser. Mr. Chairman, thank you very much for this 
opportunity. Senator McCain. I would like to also thank Senator 
Murkowski for her kind introduction and for her continued 
support of our men and women in uniform.
    If I could, let me first introduce my wife, Rena, my 
partner for 11 years, who has eagerly learned about the Air 
Force and the joint community, and now steadfastly advocates 
for and supports military families around the globe.
    Next, I'm joined by my son, Ian. He spent 4 years in the 
Air Force. He's a veteran of Operation Iraqi Freedom and now 
works with industry.
    I'm also accompanied by my daughter, Heather, and her 
husband, Lieutenant Colonel Bruce Lyman, a businessman and 
member of the Air Force Reserve. Lieutenant Colonel Lyman, when 
performing duty with the Air Force Reserve, routinely travels 
forward to Iraq and Afghanistan to directly support our joint 
warfighters. Heather and Bruce have also blessed us with our 
first grandchild.
    We're also joined today by Lieutenant Michael Dinmore, a 
U.S. Air Force Academy graduate who we sponsored while we were 
in Colorado Springs while he was attending the Academy, and 
he's now a third-year medical student at Bethesda, and he's 
essentially another son to us.
    Finally, our daughter, Hannah Green, couldn't be with us 
today. She is, I'm sure, studying very hard and doing well in 
her final exams back in Honolulu.
    Mr. Chairman, thank you for this opportunity to introduce 
my family. As you can see, we've grown very robustly, in our 
Air Force career and our time in the Armed Forces.
    Distinguished members of the committee, it's my distinct 
privilege to appear before you today as the nominee for the 
Commander of United States Southern Command. I am both honored 
and humbled to be nominated by the President and the Secretary 
of Defense for this important role and for the opportunity to 
continue serving with the magnificent men and women who 
voluntarily defend this Nation.
    I am no stranger to Latin America. I spent 3 years in high 
school in Bogota, Colombia, graduating there in 1971. During 
this time, I gained a lifelong appreciation and affection for 
Latin America. Since that time, I have visited several 
countries in the region on a couple of different occasions, 
and, if confirmed, I relish the opportunity to return to the 
wonderful lands of my childhood.
    While I haven't spent much time in Latin America during my 
career, let me assure you that I will spend all my time and 
energy enhancing the role that United States SOUTHCOM plays 
with our partner Armed Forces in the region and continue 
Admiral Stavridis' dedicated efforts to enhance the interagency 
cooperation and coordination.
    Finally, as Admiral Stavridis mentioned, I am honored to 
share this venue with him and Lieutenant General McChrystal. I 
can't think of two better joint partners--battle buddies, 
wingmen, shipmates--I'd rather be with here today than these 
two distinguished gentlemen.
    I've not had the pleasure of directly serving with Admiral 
Stavridis. As I have looked more closely at SOUTHCOM, I'm 
impressed by what SOUTHCOM has accomplished under his 
leadership, by his foresight and his innovation, and I look 
forward to the opportunity to build on his distinguished 
accomplishments.
    Likewise, during my current duty as the Deputy Commander 
United States Pacific Command, I've shared some time with 
Lieutenant General McChrystal while he served as the Director 
of Joint Staff. I am equally impressed with his vision, 
intellect, and drive to improve the coordination and operation 
of our joint forces.
    Mr. Chairman, thank you for the opportunity and the 
privilege to appear before you today. I look forward to your 
questions.
    Chairman Levin. Thank you very much, General.
    General McChrystal?

  STATEMENT OF LTG STANLEY A. McCHRYSTAL, USA, NOMINEE TO BE 
GENERAL AND COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE 
            AND COMMANDER, U.S. FORCES, AFGHANISTAN

    General McChrystal. Mr. Chairman, Senator McCain, members 
of the committee, thank you for the opportunity to appear 
before you.
    I'd like to thank the Chairman of the Joint Chiefs of Staff 
and the Secretary of Defense for recommending me, and the 
President for nominating me to serve the team engaged in this 
important mission.
    I'm accompanied today by my wife, Annie. Her love and 
support for more than 32 years have been extraordinary.
    The President's new Afghanistan-Pakistan strategy outlines 
a path to attaining our strategic goal in the region through a 
fully resourced counterinsurgency campaign in Afghanistan. It 
is important for me to give you my perspective on where I 
believe we are and where we must go. I appreciate this 
opportunity.
    First, I'd like to recognize the many Afghan civilians, 
soldiers, and police, who, along with young Americans and all 
our coalition partners, have sacrificed greatly to stand up and 
fight for Afghanistan. I honor the fallen, as I know do each of 
you on this committee.
    You gave me the opportunity to discuss in detail one of 
those fallen, Corporal Pat Tillman, in closed session with this 
committee a year ago, in advance of my confirmation as Director 
of the Joint Staff, which I appreciated. I stand ready to 
answer any additional questions you may have.
    I would like to express my deepest condolences to his 
fellow Rangers, who lost a comrade, and to his family, who lost 
a brother, a husband, and a son.
    As a fellow soldier, I'd also like to recognize the service 
of General David McKiernan.
    In Afghanistan, despite impressive progress in many areas 
since 2001, the situation is serious. Afghans face a 
combination of challenges: a resilient Taliban insurgency, 
increasing levels of violence, lack of governance capacity, 
persistent corruption, lack of development in key areas, 
illicit narcotics, and malign influences from other countries. 
Together, these challenges threaten the future of Afghanistan 
and regional stability.
    The potential re-emergence of al Qaeda or other extremist 
safe havens in Afghanistan, as were present before September 
11, and existing safe havens in Pakistan, are critical threats 
to our national security and to our allies.
    Additionally, challenges to legitimate governance, like 
those underway in Pakistan, undermine an important partner and 
threaten regional stability.
    Finally, I believe that providing the Afghan people, 
battered by 30 years of almost unbroken violence, an 
opportunity to shape their future requires our firm commitment 
and demonstrates the values that underpin America's credibility 
worldwide.
    For all these reasons, we must succeed.
    The challenge is considerable. This is not the environment 
we, along with our NATO allies and other international 
partners, envisioned 4, or even 2, years ago, but it is the 
environment we have today and the place from which we must 
navigate a way forward.
    There is no simple answer. We must conduct a holistic 
counterinsurgency campaign, and we must do it well. Success 
will not be quick or easy. Casualties will likely increase. We 
will make mistakes. The commitment and continued support of 
this committee, Congress, and the American people will be 
vital. With the appropriate resources, time, sacrifice, and 
patience, we can prevail.
    A key component of resourcing is people. More than 21,000 
additional U.S. military personnel will have deployed to 
Afghanistan by October this year. You might properly ask if 
that is enough. I don't know. It may be some time before I do. 
What I do know is that military-centric strategy will not 
succeed. The Department of State and other members of the 
interagency are preparing to train and deploy additional 
civilian personnel with vital governance and development 
expertise. Development of an integrated civil-military plan 
with Ambassador Karl Eikenberry and his team to unite efforts 
across security, governance, and development is ongoing. It 
complements efforts by Ambassador Richard Holbrooke, General 
David Petraeus, and others to address issues across the region. 
I will support fully the completion and execution of that plan.
    Counterinsurgency is difficult business and demands 
resources, courage, and commitment over time. Each step of the 
essential shape-clear-hold-build process offers challenges and 
pitfalls. We face serious challenges, but the insurgency threat 
and the Afghan people offer no vision for a better future and, 
thus, remain vulnerable to a government in Afghanistan that can 
provide one.
    Central to counterinsurgency is protecting the people. 
Efforts to convince Afghans to confer legitimacy on their 
government are only relevant if Afghans are free to choose. 
They must be shielded from coercion while their elected 
government secures their trust through effective governance and 
economic development at all levels. This must be Afghanistan's 
effort, with our committed support.
    In counterinsurgency, how you operate, the impact of 
civilian casualties, collateral damage, cultural insensitivity, 
and the inherent complexities involved in separating insurgents 
from the population often determine success or failure. If 
defeating an insurgent formation produces popular resentment, 
the victory is hollow and unsustainable.
    In Afghanistan, faced with a determined and unconstrained 
foe, precision and discipline are essential, from limited but 
necessary air strikes to small-unit search and detention 
operations. If confirmed, I would emphasize that how we conduct 
operations is vital to success. This is a critical point. It 
may be ``the'' critical point. This is a struggle for the 
support of the Afghan people. Our willingness to operate in 
ways that minimize casualties or damage, even when doing so 
makes our task more difficult, is essential to our credibility. 
I cannot overstate my commitment to the importance of this 
concept.
    My experiences leading counterterrorist forces in 
Afghanistan, Iraq, and other locations did much to develop my 
strong belief in the importance of a holistic counterinsurgency 
campaign. While proud of the contributions of the forces I was 
honored to command, we were most effective when integrated with 
interagency and allied-nation partners in full-spectrum 
counterinsurgency campaigns. In Afghanistan, I believe 
intelligence-driven precision operations will remain critical, 
but must be subordinate to efforts that protect the population 
and set conditions for governance and economic advancement.
    Although I expect stiff fighting ahead, the measure of 
effectiveness will not be enemy killed, it will be the number 
of Afghans shielded from violence. Securing the population is 
ultimately best done by Afghans. I consider the development of 
Afghan Security Forces, both the ANA and Afghan National Police 
(ANP), our highest-priority security task. If confirmed, I 
would work with our NATO, European Union, and Afghan partners 
to support this effort.
    At this point, I also believe the Afghan National Security 
Forces will likely need to grow beyond the currently approved 
strengths to provide adequate security. Like you, I am keenly 
aware their efforts are part of a coalition, many of whom have 
sacrificed greatly and invested heavily to support Afghanistan. 
If we are both confirmed, I will have the honor of working for 
my friend Admiral Jim Stavridis, and my command will include 
approximately 59,000 servicemembers from 41 nations, all 28 
NATO nations, and 14 NATO partner nations supporting 
Afghanistan. Presently, ISAF forces are conducting security and 
stability operations, providing senior leadership in all five 
regional commands, and are directly involved in the mentoring, 
training, and equipping of the ANA. I look forward to listening 
to, learning from, and leading, this team in our common 
challenge.
    As this committee knows, since September 11 our forces have 
learned valuable lessons regarding the treatment of detainees, 
and made mistakes along the way. When I took command in 2003, I 
found our treatment of detainees followed existing guidance but 
needed improvement. Our facilities were limited, our expertise 
in specialties like interrogation was insignificant--or, 
insufficient--and we lacked organizational experience at every 
level. In the months and years that followed, we invested 
considerable energy, developed expertise and experience, and 
improved continuously. If confirmed, I will strictly enforce 
the highest standards of detainee treatment consistent with 
international and U.S. law.
    Our effort in Afghanistan demands expertise and continuity. 
Working within the realities of family needs and career 
development, we must develop a core of professionals who 
possess expertise in the theater, in its languages and culture. 
Assigned for repeated tours, remaining focused on Afghanistan 
when not deployed, these experts can significantly increase the 
effectiveness of our overall effort.
    I'd like to thank the committee for their consistent 
support. Programs like the Commanders Emergency Response 
Program (CERP) offer critical flexibility. Robust intelligence, 
surveillance, and reconnaissance (ISR) assets facilitate 
unprecedented intelligence fusion. Equipment like the Mine 
Resistant Ambush Protected all-terrain vehicle save lives, and 
programs like the Afghan National Trust Fund build partner 
capacity. But, most important is our magnificent volunteer 
force. Seasoned by years and growing experience in 
counterinsurgency operations, they continue to inspire us with 
their courage and commitment. They are strong, but have given 
much.
    Thank you for the unfailing support you have provided these 
tremendous professionals and their families.
    I was honored to be nominated for this position, and, if 
confirmed, pledge to you and to the men and women for whom I 
would serve the best of which I am capable. With that, I look 
forward to answering your questions.
    Chairman Levin. Thank you, General.
    We'll have an 8-minute round. Before we begin with 
questions, let me ask the standard questions of each of you. We 
ask these of all of our nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [All three witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All three witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All three witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All three witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All three witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee?
    [All three witnesses answered in the affirmative.]
    Do you agree to give your personal views, when asked before 
this committee to do so, even if those views differ from the 
administration in power?
    [All three witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents?
    [All three witnesses answered in the affirmative.]
    I think there's going to be a vote at 11 o'clock, and if 
there is, we'll try to work right through it.
    Let me ask both Admiral Stavridis and General McChrystal 
about the end strength of the ANA. General McChrystal, you made 
reference to it. The current goal, target end strength, for the 
ANA is 134,000. As of April, there are 86,000 troops assigned 
to the army. President Obama has approved the deployment, later 
this year, of 4,000 soldiers as trainers to embed and to work 
with the Afghan Security Forces. But, I'm very much concerned, 
as many of us are, about the size of that army and the lack of 
a higher end strength goal. I joined with Senator Lieberman and 
13 other Senators in a letter to the President to urge him to 
support, now, the increase in the end strength levels for the 
Afghan army and the police to the higher ranges, which were 
recommended by the Afghan defense and interior ministers; and 
for the army, that range was between 250,000 and 300,000, which 
would mean double the current target.
    Admiral, let me ask you first, because General McChrystal 
has already commented on it, but then I want to ask the General 
the same question. Do you believe that the realities on the 
ground in Afghanistan necessitate growing the Afghan National 
Security Forces beyond the currently planned end strengths?
    Admiral Stavridis. Mr. Chairman, my study of, sort of, 
classic counterinsurgency doctrine, looking at everything from 
T.E. Lawrence through David Kilcullen's ``The Accidental 
Guerrilla'' as I prepared for these hearings, would lead me to 
believe that we do need larger security forces in what Stan has 
correctly referred to as a classic counterinsurgency campaign.
    Chairman Levin. That means larger than the current end 
strength?
    Admiral Stavridis. Yes, sir.
    Chairman Levin. General, you said that we're likely to need 
them; in your judgment, will the Afghan Army need to have a 
significantly higher end strength than 134,000?
    General McChrystal. Yes, sir, that's my belief right now.
    Chairman Levin. In terms of the Pakistan situation--and 
here, I think, General, you also made reference to this--would 
you agree with me that assistance to Pakistan will only be 
effective if the Pakistani Government is perceived by the 
people of Pakistan as taking the fight to the insurgents 
because of their own needs as a nation, not because of U.S. 
pressure?
    General McChrystal. Yes, sir, I do.
    Chairman Levin. Admiral, do you want to give a quick 
comment on that?
    Admiral Stavridis. Yes, sir, I do.
    Chairman Levin. All right.
    General McChrystal, are you familiar with the National 
Solidarity Program in Afghanistan?
    General McChrystal. Yes, sir, I am.
    Chairman Levin. Do you have an opinion as to its success 
and whether it's a good program?
    General McChrystal. Sir, at this point--and I want to learn 
more when I get on the ground, but, what I've seen from here, 
it's been very successful and very positive.
    Chairman Levin. All right. Now, relative to the question of 
detainees--and you made brief reference to it, General--we have 
a letter from you, which I'll make part of the record--
clarifying an answer which you provided for the committee in 
advance of the hearing today.
    One line in your letter says that, ``We must at all times 
adhere to our obligation to treat detainees humanely. Military 
necessity, as well--along with humanity or principles of--
underlying the Law of War, military necessity does not permit 
us to derogate from those imperatives.'' I'll put the entire 
letter in the record, but it is an important clarification of 
your pre-hearing answer for the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Now, relative to the events that occurred, 
I want to just clarify your understanding and your awareness 
and knowledge of what occurred when you were the commander of 
special operations. How many special-mission unit task forces 
were there when you were the commander?
    General McChrystal. Sir, they were multiple. We had a task 
force at Afghanistan, which then had subordinate task forces, 
and sometimes it was as few as two, sometimes it was as many as 
four. In Iraq, similarly, we had a major task force, then later 
went to two major task forces, and each of those had 
subordinate task forces.
    Chairman Levin. All right.
    General McChrystal. I couldn't give you, off the top of my 
head, but it was--at times it was as many as 8 to 10 task 
forces, all under my command.
    Chairman Levin. All right. Now, you were the commander of 
special operations, is that correct?
    General McChrystal. Sir, I was commander of part of special 
operations. There were theater special operations, as well.
    Chairman Levin. All right. Now, you were not the task force 
commander?
    General McChrystal. Sir, I was the Joint Task Force 
Commander for Task Force 714.
    Chairman Levin. But, in terms of those special-mission unit 
task forces, you were not the commander of those task forces?
    General McChrystal. Sir----
    Chairman Levin. You were not a commander of one of those 
task forces?
    General McChrystal. Sir, those task forces made up my joint 
task force.
    Chairman Levin. Did each of those task forces, those 
special-mission unit task forces, have a commander?
    General McChrystal. Yes, sir.
    Chairman Levin. All right. Now, what was your 
understanding, your awareness of the treatment of detainees 
when you were the overall commander? The Inspector General of 
the Department of Defense (DOD) indicated that a memorandum of 
the Secretary of Defense which was approved on December 2, 
2002--and that memorandum, relative to the interrogation of 
detainees, authorized the use of things like stress positions, 
sleep deprivation, and the use of dogs. The report of this 
committee showed how that memorandum of December 2, 2002, then 
went to, first, Afghanistan and then was transmitted verbatim 
to Iraq. In terms of the treatment of detainees--when you got 
there, tell us what you were aware of, what you did, relative 
to that subject.
    General McChrystal. Yes, Mr. Chairman.
    I took over in October 2003, and I'd like to sort of start 
with three things, to begin with. First, I do not, and never 
have, condoned mistreatment of detainees, and never will. When 
we found cases where we thought there was an allegation of 
mistreatment, we investigated every one, and we punished, if, 
in fact, it was substantiated, and that was from the beginning.
    That said, when I took command, I found the detainee 
facilities really insufficient for need. They were physically 
not prepared for that. We didn't have the right number of 
interrogators. We didn't have the right experience in the 
force, either. None of us had ever done this with the level of 
precision that we needed to, so we learned.
    We stayed within all of the established and authorized 
guidelines. They were in them when I took command, and then, 
with each change in guidelines, we did a legal review, and 
stayed within those all the time. But as I outlined last year 
when we discussed it, it also was something that I believe 
continuously improved. Each month, we got better at it, for 
lots of reasons. One, our experience got better. Two, the 
procedures got, just, constantly looked at and so that they 
were improved. So, I think the constant improvement is the 
thing that took us from what I think was acceptable and legal 
to something that I became much more proud of over time, in 
terms of the quality of the operation.
    Chairman Levin. When you say ``acceptable and legal,'' you 
mean that they were within the guidelines established by the 
Secretary of Defense.
    General McChrystal. Sir, they were within legally 
prescribed guidelines, that's right, the policy we were given.
    Chairman Levin. The policy that you were given that you 
understood at that time was legal.
    General McChrystal. Yes, sir, that's right.
    Chairman Levin. That policy included, at that time, under 
that December 2, 2002, memorandum of the Secretary of Defense--
that policy included the aggressive acts that I described: 
stress positions, the use of dogs, and nudity. Is that correct?
    General McChrystal. Sir, it did. We did not use all of the 
things that were outlined there.
    Chairman Levin. Were some of them used?
    General McChrystal. Some of them were used when I took 
over, sir, and then, we immediately began to reduce that.
    Chairman Levin. You immediately began what?
    General McChrystal. To reduce those, sir.
    Chairman Levin. Okay.
    Senator McCain.
    Senator McCain. Go ahead if you want to----
    Chairman Levin. No, I think that----
    Well, I just want to make sure, when you say that you 
``improved'' you meant that even though some of the actions 
relative to detainees, the aggressive interrogation techniques, 
had been approved by the Secretary of Defense in a memorandum, 
which you understood had been legally authorized, that, when 
you say you ``improved them,'' you reduced the number of 
techniques which were utilized, even though they had been 
authorized, is that correct?
    General McChrystal. That's correct, Mr. Chairman.
    Chairman Levin. All right. Now, were you uncomfortable with 
some of the techniques that you saw there?
    General McChrystal. When I took over, I was, Mr. Chairman.
    Chairman Levin. All right. The direction of reduction of 
the use of those techniques, even though they had been 
authorized by the Secretary, nonetheless was something that you 
felt was appropriate and necessary?
    General McChrystal. That's correct, Mr. Chairman.
    Chairman Levin. All right. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses for their excellent opening 
statements.
    General McChrystal, General McKiernan reportedly had a 
request pending for the deployment of an additional 10,000 U.S. 
troops to Afghanistan in 2010. Do you expect to renew this 
request, alter it, or rescind it?
    General McChrystal. Sir, I believe I'll have to make an 
assessment on the ground, and can't tell you right now whether 
I would do that.
    Senator McCain. What is your initial assessment? Do we need 
the additional 10,000?
    General McChrystal. Sir, I'm just not sure, at this point.
    Senator McCain. How long do you expect the 
counterinsurgency effort in Afghanistan to last?
    General McChrystal. Sir, I can't put a hard date on it. I 
believe that counterinsurgency takes time. I believe that we 
need to start making progress within about the next 19 to 24 
months to know----
    Senator McCain. But, you do comment, in your statement, 
that you believe that casualties will go up in the short term.
    General McChrystal. Sir, I do.
    Senator McCain. I think that's an important message that 
Members of Congress and the American people understand.
    Roughly how many detainees are in prison in Bagram today? 
Roughly.
    General McChrystal. Sir, I believe it's about 600, but I--
--
    Senator McCain. Not all are from Afghanistan? Some are 
other foreign nationals?
    General McChrystal. I don't know the detailed breakdown 
right now, sir.
    Senator McCain. Do you expect that, as we saw in Iraq, 
fighters from other countries will be on the battlefield in 
Afghanistan?
    General McChrystal. I do, Senator.
    Senator McCain. We will probably be capturing some of 
those?
    General McChrystal. I do, Senator.
    Senator McCain. Then our problem with what to do with 
detainees from other countries will continue.
    General McChrystal. I believe that it will.
    Senator McCain. The death by friendly fire of Corporal 
Tillman was a great tragedy, as we all know, and the pain and 
the loss of this American hero to his family was compounded by 
the misinformation that quickly spread about the circumstances 
of his death, some of which were included in the recommended 
citation for the award of the Silver Star Medal that was 
forwarded by his commanding officer through you, as the 
commanding general of the Joint Special Operations Command, and 
approved by you on April 28, 2004. Can you describe what 
happened in April with respect to the information regarding the 
circumstances of Corporal Tillman's death, and why you 
forwarded the Silver Star recommendation in the form that it 
was in?
    General McChrystal. Senator, I can. I appreciate the 
opportunity to do that.
    Corporal Tillman was killed on April 22, and in the days 
following, as with the loss of any soldier, a number of things 
happened, administrative and just practical things that 
occurred. I particularly took part in two things. I arrived 
back into Afghanistan from a meeting in Qatar with General John 
Abizaid on about the 23rd, and I was informed, at that point, 
that they suspected that friendly fire might have been the 
cause of death, and they had initiated what we call a 15-6, or 
an investigation of that. We initially were waiting for the 
outcome of that initial review before we went forward with any 
conclusions. It was a well-intended intent to get some level of 
truth before we went up.
    At the same time, we looked at his potential award for 
valor. Any lost soldier, they immediately look and determine 
whether an award was appropriate. In the case of Corporal 
Tillman, a Silver Star was recommended. I sat down with the 
people who recommended it. That was higher than some had been 
given, and we went over a whiteboard, and we looked at the 
geometry of the battlefield, and I queried the people to 
satisfy myself that, in fact, that his actions warranted that, 
even though there was a potential that the actual circumstance 
of death had been friendly fire.
    I need to stress, here, we've had a number of famous people 
in American history killed by friendly fire--Stonewall Jackson, 
Leslie McNair, and the like--and I don't separate or I don't 
believe that the circumstance of his death detracts from his 
courage, commitment, or contribution.
    So, I was comfortable recommending, once I believed that 
the people in the fight were convinced it warranted a Silver 
Star, and I was too, with forwarding that.
    I also sent a message informing my chain of command that we 
believed it was fratricide, and we did that when we were told 
there were going to be fairly high-profile memorial services.
    Now, what happens, in retrospect, is--and I would do this 
differently if I had the chance again--in retrospect, they look 
contradictory, because we sent a Silver Star that was not well 
written. Although I went through the process, I will tell you 
now I didn't review the citation well enough to capture or, 
catch that, if you read it, you can imply that it was not 
friendly fire. Also, when I sent the message, the intent 
entirely was to inform everybody up my chain of command so that 
nobody would be surprised.
    If I had it to do all over again--and we subsequently 
changed Army policy after this, because the intent on awards at 
that time was to do an award rapidly so that it could be 
presented to the family at the memorial service for their 
comfort. What we have learned since is, it is better to take 
your time, make sure you get everything right with the award, 
and not rush it.
    I say that, in the two things which I believe were entirely 
well intentioned on my part and, in my view, everyone forward 
that I saw was trying to do the right thing. It still produced 
confusion at a tragic time. I'm very sorry for that because I 
understand that the outcome produced a perception that I don't 
believe was at all intended, at least in the forces that were 
forward.
    Senator McCain. Do you believe that Corporal Tillman earned 
the Silver Star by his actions before he died?
    General McChrystal. Sir, I absolutely do. I did then, I do 
now.
    Senator McCain. Given your experience in Afghanistan, do 
you believe that the interrogation techniques that are provided 
in the Army Field Manual are sufficient to get the information 
to fight the battle that you need?
    General McChrystal. Yes, sir, I do.
    Senator McCain. Do you believe any additional techniques 
are necessary?
    General McChrystal. No, sir.
    Senator McCain. I interrupted you. You expect the 
counterinsurgency in Afghanistan to be dependent, to some 
degree, on Pakistan; therefore, unpredictable. Are you 
encouraged by the recent, perhaps temporary, success by the 
Pakistani Army in Swat and perhaps moving in to Waziristan?
    General McChrystal. Sir, I am encouraged.
    Senator McCain. How do you account for that?
    General McChrystal. Sir, I believe that, if you looked back 
several years, what appeared to the people of Pakistan as an 
American problem of terrorists that were transnational, some of 
whom happened to be in Pakistan, I believe that they now view 
it as an internal insurgency. They have an internal insurgency. 
The actions which they have taken over the last weeks have been 
resolute in going after that internal insurgency.
    Senator McCain. So, the situation isn't as bad as we had 
feared, but not as good as we hope, regarding the effectiveness 
or commitment of the Pakistani Government and military.
    General McChrystal. Sir, I think the situation is very 
serious, but they know it and are acting on it.
    Senator McCain. Aren't you concerned about the overall 
corruption problem in Afghanistan?
    General McChrystal. Sir, I am.
    Senator McCain. Are you worried that there's still not a 
joint strategy, or agreed-upon strategy, as far as the 
eradication or control of the poppy crops?
    General McChrystal. Sir, I believe that is critical, that 
we develop one.
    Senator McCain. Do you see any coherency in that policy?
    General McChrystal. Sir, I haven't been forward to look at 
it closely, but I know we need one.
    Senator McCain. As a result of your experience in Iraq, 
what lessons do you apply to Afghanistan? Briefly, since I 
think I'm out of time.
    General McChrystal. Sir, I believe a counterinsurgency 
campaign, a classic counterinsurgency campaign, well resourced, 
is going to be required. I think that's all----
    Senator McCain. Under very different circumstances.
    General McChrystal. It's different, sir, but many of the 
same requirements. We have to get governance, development, and 
security, or we won't make progress.
    Senator McCain. A large geographic area?
    General McChrystal. Sir, it is more limited than it was at 
some times in Iraq; it's mostly in the south and the east, but 
there are some problems in the west and popping up in the 
north, as well.
    Senator McCain. We will experience significant resistance 
as we move into the south of Afghanistan?
    General McChrystal. Sir, I believe that we will.
    Senator McCain. Am I out of time?
    Chairman Levin. You are out of time.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thanks, to the three of you for your extraordinary careers 
of service to our country, and congratulations on these 
nominations.
    I want to focus in on Afghanistan, for most of my 
questions, and say that, in nominating Admiral Stavridis and 
General McChrystal to the positions you're going to, it seems 
to me that the President has put in place here what I would 
call, not just a strong team, but really an all-star team. With 
Admiral Stavridis, for EUCOM, General Petraeus in Central 
Command, you now, General McChrystal, heading our operations, 
as you've described, in Afghanistan, with General Rodriguez, 
that, together with the diplomatic nonmilitary effort there 
with Ambassador Holbrooke, now Ambassador Eikenberry going into 
Kabul with crew of his own that will feature, I guess, several 
State Department personnel of ambassadorial rank, we're really 
concentrating our strength, here, because it's so important to 
win in Afghanistan. I suppose I want to ask you that, as a 
first question.
    General McChrystal, do you believe this is a winnable war 
in Afghanistan for ourselves and our Afghan allies?
    General McChrystal. Sir, I believe it is winnable, but I 
don't think it will be easily winnable.
    Senator Lieberman. I think both of those points--very 
important to hear from you--that is, for Members of Congress 
and the American people to understand, that it's winnable, but 
it's not going to be easy; it's probably going to get worse 
before it gets better.
    I know you're a general and not a political leader, but, I 
think, in these kinds of positions these days, you're going to 
probably be asked the kinds of questions that we're asked. So, 
let me ask you, Why do you think it is important that we 
succeed in Afghanistan?
    General McChrystal. Sir, I think the first and obvious 
thing is to prevent al Qaeda safe havens as were before 
September 11. I actually believe that the importance is much 
wider than that. I believe the regional stability of 
Afghanistan and Pakistan are linked, and a lack of stability in 
that area, I think, is going to cause geopolitical problems. 
Even if there were no al Qaeda, I think it would still be an 
important region.
    Finally, I think our credibility in the world--we have the 
ability to support the people of Afghanistan and to move in to 
shape a better future that they want, and I think that that 
will make a difference in how we are viewed, worldwide.
    Senator Lieberman. You made some interesting statements in 
the question and answers you exchanged with the committee about 
the linkage between the Taliban and al Qaeda. There have been a 
lot of people, in recent months, who have been saying that it 
may be possible to break off the Taliban to cooperate with us. 
But, you've made some very strong statements here about your 
skepticism about our ability to do that, to break the Taliban 
away from al Qaeda, certainly not so long as they think they 
are winning. I want to ask you to speak a little bit to the 
Taliban/al Qaeda linkage, as you see it.
    General McChrystal. Yes, sir. I guess, first, I'd say that 
the al Qaeda linkage is somewhat to the Taliban, but it's also 
to other organizations there. They have, in fact, been there 
for many years now. They've intermarried, they've created 
connections that are beyond just organizational.
    Insofar as with the Taliban, they do have a link with the 
Taliban, and I don't think that the Taliban have any reason, 
right now, to turn their back on al Qaeda. Therefore, I don't 
think there's a motivation to do that.
    I think what is probably more important is, I don't believe 
that the Taliban is a single, cohesive organization. They are 
more a confederation of smaller entities, many of which are 
absolutely motivated by regional or financial or almost 
warlordism, so they do not have a large coherent structure, to 
the level it sometimes can look on a map or on an 
organizational chart. I think it might be easier to fragment 
the Taliban and separate the hardcore Taliban from the hardcore 
al Qaeda.
    Senator Lieberman. Thank you.
    General, it's my understanding that, as of today, we still 
don't have the kind of integrated joint civil-military plan for 
Afghanistan that we have for, and had for some time now, in 
Iraq. Is that your understanding?
    General McChrystal. Sir, I know that planning is ongoing to 
develop that. Karl Eikenberry is an old friend of mine, and I 
have committed that, if confirmed, that would be something that 
we absolutely will complete as quickly as possible.
    Senator Lieberman. So, it's your statement, here, that you 
intend to work with Ambassador Eikenberry on a joint civil-
military plan for Afghanistan.
    General McChrystal. Absolutely, sir.
    Senator Lieberman. Do you have a goal, a time by which you 
hope to complete that?
    General McChrystal. Sir, I hate to be pinned to goals, but 
I think we need to finish that this summer.
    Senator Lieberman. Soon. Okay, good.
    Admiral, there's a lot of both appreciation for NATO 
involvement in Afghanistan, and also a dissatisfaction with how 
it's working, overall, and particularly those of us who are 
very committed to NATO, concern that this significant out-of-
theater involvement by this great military alliance succeed. Of 
course, it's hard to run a war with this many nations, 
particularly if they come into the battlefield with individual 
caveats. As you assume this command, what are your thoughts 
about what we can do to improve NATO's involvement, here, in 
Afghanistan?
    Admiral Stavridis. Sir, thank you. First, if I could, I'd 
add to Stan's excellent list of why Afghanistan matters. The 
point precisely that you just raised, it matters because of the 
NATO engagement. How the Alliance performs there will bleed 
over into the future of the Alliance. I don't think it's a go/
no-go for the Alliance, but it's certainly important and 
critical. In addition to all the excellent points Stan made, I 
would add that one, as well.
    As I look at it--and, of course, I have not had any 
conversations yet with my military interlocutors in the world 
of NATO--I was very struck by what Ranking Member McCain said, 
that we need to think about asking our allies to do what they 
are willing to do and recognize where there are places they 
just cannot go. That runs the gamut of things, from money to 
civil-military actions, along the lines of the plan that 
General McChrystal and Ambassador Eikenberry are going to put 
together. It includes the trust fund that we talked about 
because, as the Chairman said, the odds are high that we will 
need more Afghan security forces, at the end of the day. At the 
end of the day, all security is local. So we'll need funding 
for that. That's a potential zone of contribution for NATO.
    Sir, I think there are many different avenues for me to 
pursue, if confirmed, and I look forward to those interactions 
with our allies, working with General McChrystal to hear what 
he needs, and attempting to facilitate that.
    Senator Lieberman. Thank you, Admiral. My time's expiring. 
I just want to state for the record, on a different matter, you 
have some very strong statements, in the question and answer 
with the committee, on the rising ballistic missile threat to 
Europe, and particularly that posed by Iran. As a consequence, 
you argue that--and I quote you, ``the deployment of ballistic 
missile defense assets in Europe would make a significant 
contribution to the protection of the United States and Europe 
from a Middle-Eastern ballistic missile threat.'' You also very 
strongly said, ``We need multi-layered missile defense 
capabilities stationed and operational in the region before a 
threat fully emerges to ensure our common European allies' and 
partners' security.'' In this vein, and quite specifically, 
warn that though the sea-based--basically the Aegis and THAAD 
Patriot programs are very important, they cannot defeat, and I 
quote you again, ``the entire range of threats by themselves.''
    I want to thank you for those statements. I couldn't agree 
with you more, and I look forward to working with you on those 
and other matters related to your command.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me just state--which you're aware of, Mr. 
Chairman, but our guests may not be--that they always have a 
Senate Committee on Environment and Public Works meeting at the 
same time they have this, so that puts me in an awkward 
situation of having to go back and forth. Let me say, second, I 
can't think of any three people who are more qualified for the 
positions for which you're nominated than the three of you, and 
I am very excited about things to come.
    Now, you may have covered this in my absence, but I want to 
mention, in fact, there was a great editorial in Investors 
Business Daily called ``Iran Grows Bold.'' I'll just read a 
little bit of here and then I want to make it as part of the 
record--``That's why, knowing we've decided on appeasement as 
the best course, Iran's Mahmoud Ahmadinejad, on the very day of 
North Korea's demonstration of a nuclear bomb said that a 
``freeze'' of Iran's own nuclear program was out of the 
question.'' It goes on and talks about some of the individuals 
from--here it is--``General Vladimir Dvorkin, head of Center 
for Strategic Nuclear Forces in Moscow, recently said, Iran is 
actively working on a missile development program, 1 or 2 years 
away from having a nuclear weapon.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. I'm getting mixed signals here, because 
we're all very familiar with the capabilities that we need to 
protect western Europe, and maybe even the United States, from 
a missile coming from Iran, and it's necessary to have the 
radar in the Czech Republic, as well as the Poland 
opportunities. While they're for it, and they're ready to do 
it, and the Polish Parliament is even saying that they are 
hoping that ``We don't regret our trust in the United States.'' 
I'd just like to have one of you respond to what is confusing 
to me, and that is why it is that we now have Russia saying 
that they don't want to participate in this, or they don't want 
to approve this until and unless they have certain conditions 
met on the Strategic Arms Reduction Treaty, and yet they turn 
around and say that, yes, it is necessary to have this. Where 
do you think Russia is, and how important do you think--let's 
start with you, Admiral Stavridis--to have that European site?
    Admiral Stavridis. Yes, sir, I think I'm probably the right 
one to answer the question, given that Russia is part of the 
EUCOM area of focus.
    Sir, as you fully appreciate, and the Chairman alluded to 
this in his opening statement, any of these decisions really 
are a matrix of diplomatic and political activity that goes 
well beyond the purview of a military commander. My own view, 
at this point, looking at it from a distance and before I have 
an opportunity, if confirmed, to go and interact with the----
    Senator Inhofe. Forget about the politics, just the 
importance of the European site, from a military perspective.
    Admiral Stavridis. From what I can see, at this point, I'd 
agree with the President's comments that he made at the NATO 
summit, which are that, as long as the Iranian threat persists, 
the system is effective, that the likelihood of proceeding 
forward is important.
    Senator Inhofe. I would say it looks like the Iranian 
threat will persist. While I'm asking you a question, this is 
kind of off the wall--I've fought and lost the 3-year battle of 
Vieques a few years ago. I felt, at that time, that was the 
best integrated training opportunity that we had. We've been 
using it since 1941, we lost it, for political reasons, both 
Democrats and Republicans, because President Bush was in on 
this decision. Now the things that I said were going to happen, 
the adverse things, in terms of Roosevelt Roads and adversely 
affecting Puerto Rico, I'm getting people coming back to me, 
saying, ``Any possibility of reopening Vieques as a site?'' Any 
thoughts on that?
    Admiral Stavridis. Sir, that would, of course, fall under 
the purview of my good friend, Chief of Naval Operations, 
Admiral Gary Roughead. I'll take that message back to Admiral 
Roughead and ask him to interact with you.
    Senator Inhofe. Do you think the quality of training today 
is as good as it was when we had that integrated training at 
Vieques?
    Admiral Stavridis. Sir, I don't know the answer to that 
question. I have not operated----
    Senator Inhofe. Okay, but maybe for the record we could do 
that.
    [The information referred to follows:]

    From my perspective as a combatant commander, the Navy has been 
providing me with highly trained personnel and units who have 
accomplished so much in the Southern Command area of focus. The Navy 
has made a huge and significant impact through exercises such as Unitas 
and Panamax, as well as Operation Continuing Promise and real world 
disaster relief efforts. So, as a user I am very satisfied with the 
training the Navy is providing its sailors under their mobile training 
concept, which was created following the closing of the Atlantic Fleet 
Weapons Training Facility in Vieques to meet the training needs of the 
Navy.

    Senator Inhofe. General McChrystal, you and I talked about 
this, and I appreciate all of you visiting with me and giving 
me the time that you have. I know you've been very busy. The 
Nebraska--I don't see the Senator from Nebraska here--National 
Guard has been in Afghanistan on these agricultural programs, 
and then the Oklahoma Guard is going up to carry them on. Would 
you give a very brief assessment as to what successes or 
failures they're having up there on that?
    General McChrystal. Sir, my information, as we discussed, 
is secondhand, but all I've gotten is very positive, and I do 
know that the importance of the agricultural part of the 
development program is key. On the basis of what I know right 
now, it's very positive.
    Senator Inhofe. Good, I'm glad to hear that. I've heard 
that from a lot of the commanders in the field, and others.
    Let me get my three or four programs that are my favorites, 
just, for yes-or-no answers from the three of you. It would be 
on train-and-equip, sections 1206, 1207, and 1208, as it refers 
to Special Forces, the International Military Education and 
Training (IMET) program, the CERP program, and the Combat 
Commander Initiative Fund programs. I think those four programs 
are among the most significant programs that we have going for 
us right now. Do you agree?
    General Fraser?
    General Fraser. Yes, sir, I do agree, they're very 
important programs.
    Senator Inhofe. Admiral?
    Admiral Stavridis. Yes, sir. Based on 3 years at SOUTHCOM, 
they approach indispensable.
    Senator Inhofe. Good.
    General McChrystal. Yes, sir, I concur.
    Senator Inhofe. All right. Well, what I'd like to have you 
do--and this would be for the record--Admiral, if you could 
respond. I have been told, over there, that, by spending no 
more money, but by handling the cashflow in the IMET program, 
that we would--and maybe having a multiyear program--it would 
not be scored, and it would be immensely more beneficial to us 
for those partnerships with the other countries. If you could 
kind of answer that for the record, I'd appreciate it.
    Admiral Stavridis. Aye-aye, sir.
    [The information referred to follows:]

    The International Military Education and Training (IMET) program is 
one of the best and most cost-effective engagement tools for forging 
longlasting, military-to-military relationships with the current and 
future leaders of our hemisphere's security institutions. The funding 
flow for IMET is complex, with multiple government agencies 
participating in the budget planning process, and requiring a 3-year 
planning process. The complicated and time intensive planning process 
results in allocation occurring in the second half of the programmatic 
year. Because IMET is currently 1-year funding, this leaves little time 
for execution of funds before the end of the programmatic fiscal year. 
This would be a tight timeline for any program. However, IMET presents 
additional complications. Execution of the IMET program necessitates 
enrollment in the military institutions to which we bring our partner 
militaries. By the time we receive the budget allocations, enrollment 
in these institutions is sometimes full or closed, presenting 
additional challenges to execution of the program. For all of these 
reasons, it would be very useful if this was multi-year funding.

    Senator Inhofe. All right. AFRICOM, I know this is not 
directly involved with what you would be doing in your case--
I've been concerned that they're not getting their resources. I 
was one of them who, when the continent was divided into three 
different commands, said that it would make much more sense to 
have AFRICOM, and that's what's happening today, although it 
appears to me that they're not getting the resources. I'm 
talking about airlift resources and others. Do you think they 
are? If not, would you try to improve that?
    Admiral Stavridis. Sir, I don't have the answer to the 
question. I'll ask General Ward, who's a colleague and good 
friend. I would support the adequate resourcing of Africa 
Command. I agree it's important for unity of effort in that 
continent.
    [The information referred to follows:]

    In speaking to Africa Command, I understand that airlift is 
certainly a challenge, and some help may be coming. However, generally 
speaking, they are satisfied that they can conduct their missions 
within their resourcing.

    Senator Inhofe. Okay, good.
    Lastly, I'm getting it all in here--the concern that I have 
had for the aging fleet of everything that we're having right 
now--of course, the average of over 18 years old, the Navy 
aircraft averages 18 years; Marine Corps, over 21 years; 
refueling tankers, over 44 years. I'd like to ask each one of 
you what the impact on operating and maintaining 20- to 40-
plus-year-old equipment has on combat readiness and if you have 
any thoughts about what we can do on this, the aging aircraft 
fleet.
    Tinker Air Force Base, being in my State of Oklahoma, 
they're doing a great job on the KC-135s, but you know how old 
they are. If we are successful today and make a determination 
as to what kind of a tanker we would have, we would still be 
using them for another 30 years.
    Let's start with you, General. Does that keep you up at 
night, concern about the aging equipment that we have?
    General Fraser. Sir, it is a concern, and we need to keep 
our focus on it. I've really been on the outside as the 
Services have really deliberated on this--as I look at my 
position currently, as the Deputy Commander, Pacific Command, 
we have the resources we need to do the job; it's one of those 
things we need to make sure we continue to focus on and enable 
us in the future.
    Senator Inhofe. Admiral?
    Admiral Stavridis. I agree, sir.
    Senator Inhofe. All right.
    General McChrystal, I might go a little further, when I see 
your green uniform there, the Future Combat System is one of 
the first things--transformations in 50 years that we've had on 
the ground, and I know that it's very controversial. Many of 
these decisions are political decisions. But, I would still say 
that we're using some of the really outdated stuff. The Paladin 
was World War II technology. Recognizing the Paladin/FAASV 
Integrated Management (PIM) program is going to at least go 
forward to improve the Paladin, it's undergone two or three of 
these renovations already in the last 30 or 40 years. What do 
you think about the Army's aging equipment?
    General McChrystal. Sir, my expertise on much of the 
equipment is pretty thin, but I would say that I think tough 
decisions were made in the Secretary's budget recommendations 
for this year, particularly moving toward some of the irregular 
warfare. I think they've had to make tough tradeoffs. There are 
none that I've seen I didn't agree with----
    Senator Inhofe. Yes. Well, I know that's not in your 
purview, but it's still you; you're Army.
    Thank you very much.
    Admiral Stavridis. Sir, I just add, the Quadrennial Defense 
Review that Secretary Gates is doing now is looking very 
specifically at that issue, as well.
    Senator Inhofe. Very good, thank you, Admiral.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your service to the Nation, and 
the service of your families.
    Admiral Stavridis, Senator Lieberman raised the question of 
the long-term NATO commitment to this effort. The NATO heads of 
states agreed to create these training missions and operational 
liaison and mentoring teams. They still haven't filled them.
    Is that going to be a deficit that will continue forward, 
or are you confident they can fill that and continue for a long 
period of time?
    Admiral Stavridis. Sir, the Operational Mentoring and 
Liaison Teams (OMLTs) are in shortfall right now. There are 52 
fielded; we need 64. The really bad news is, looking ahead, 
we're positioned to have 71, and need as many as 90-plus.
    [The information referred to follows:]

    During my testimony on June 2, 2009, I misspoke concerning the 
number of Operational Mentoring and Liaison Teams (OMLTs) in 
Afghanistan. I would like to take this opportunity to correct the 
record.
    There are currently 54 OMLTs fielded; we need 66. I originally said 
there were 52 fielded and we needed 64. We are positioned to have 70 
OMLTs, while I originally said we are positioned to have 71.
    Thank you for the opportunity to correct the record.

    Admiral Stavridis. Sir, you've identified, I think, a 
crucial area. It's at the top of my priority list, if 
confirmed, to put an argument forward to our allies that this 
is the kind of thing they could perform very well in. The same 
discussion we were having earlier about, ``Where are the 
comparative advantages?'' these small teams could have 
tremendous effect and would be threaded into General 
McChrystal's civil-military campaign plan as a very central 
feature, because, at the end of the day, again, security is 
local; you have to train up these Afghans. That's what these 
so-called OMLTs would be very good at. Top of my list, sir.
    Senator Reed. Let me ask you another question, Admiral. 
With the exception of the British, who have combat brigades in-
country--and, frankly, I think French commandos and a few other 
national units--what's the ability to generate brigade-sized 
forces comparable to an American brigade?
    Admiral Stavridis. Sir, it's limited. I think that, again, 
this is why we need to work with the allies to find the sizing 
of units that they could put in the field. The Canadians do 
terrific work, down south. They have, actually, the highest 
per-capita casualty rate; higher than our own in the United 
States, for example. The Dutch are doing terrific work. The 
French are doing terrific work, and so forth and so on. Of 
course, the British.
    We need to find the right sizing units, and that's 
something that I'll be looking very much for General 
McChrystal's expertise, and also talking to General Petraeus, 
who has excellent experience at this type of coalition 
structuring on the Iraq side. I think, between the three of us, 
we need to find ways to generate combat effect if we can't have 
big standing combat formations.
    Senator Reed. Thank you.
    General McChrystal, the command structure now with General 
Rodriguez, how do you propose to utilize General Rodriguez?
    General McChrystal. Sir, General Rodriguez has 
extraordinary operational experience, which most of you are 
aware of, both in Afghanistan and Iraq. I think that in almost 
any role, he's going to be value added.
    What I would like to aspire to is that he would be in 
operational command of the regional commands, the five regional 
commands. That would allow me to look at the strategic level 
and the interface, and he would do the maneuvering. That 
requires NATO to agree to that. That is not yet done, so I 
don't want to get ahead of reality. But, that would be my 
aspiration.
    Senator Reed. There's another aspect to the questions that 
Admiral Stavridis and I have, and that is shifting away from a 
geographical base of operations to functional. That is, if NATO 
takes the training mission, if NATO takes logistical missions, 
then the geography of the fight could be up to those combat 
units. They're not all exclusively American, but mostly 
American. Is that a thought you're giving?
    General McChrystal. Sir, I just looked at that. I haven't 
studied it. It seems to make a lot of sense to me.
    Senator Reed. Okay. There is another aspect, too, here, 
which is very sensitive; that is, the civilian casualties. Like 
so many of my colleagues, I've been out there recently, and 
that is an issue that has a great political effect, manipulated 
for self-interested purposes by all sides. How are you going to 
ramp up the battle as you intend to, particularly in the south, 
and then also minimize collateral civilian casualties?
    General McChrystal. Sir, I believe the perception caused by 
civilian casualties is one of the most dangerous things we face 
in Afghanistan, particularly with the Afghan people; the 
Pashtun, most likely. I think that we have to recognize that 
that is a way to lose their faith and lose their support, and 
that would be strategically decisive against us.
    So, my intent, if confirmed, is to review all of our 
existing rules of engagement, review all of our tactical 
directives, get with all of our forces, with the goal of not 
putting ourselves in a position, except when we have to protect 
American or coalition or Afghan forces, actual survival, from 
positions where we create civilian casualties.
    Now, I'm free to say, with the chaos of war, it's difficult 
to say ``always'' or ``ever.'' But, certainly I think it has to 
be viewed as a critical requirement for us.
    Senator Reed. One of the aspects of your mission, not only 
to attack and disrupt the Taliban and the other elements there, 
but to minimize casualty, is the use of technology, like 
unmanned aerial vehicles. Do you think you have enough of 
those? Do you need more?
    General McChrystal. Sir, I have a history of saying, ``I've 
never had enough,'' and I can't ever envision a day when I'd 
say that an operation I'm involved in has enough ISR. That 
said, there has been significant increase in Afghanistan this 
year, and by the end of this year it's going to be 
significantly more. But, every time you get more ISR, you get 
more precision. Every time you get more precision, then what 
you can do is, you can reduce civilian casualties, you can also 
reduce impact on civilian population. If you are going to an 
individual, and the operation goes after a single house or a 
single compound, and you don't affect the whole village, you 
don't have a negative impact on everyone else. So, while ISR is 
not a panacea for everything, the more you have, the smarter 
you are as a force, and the more precise you can be. I'm just a 
huge believer. Everything we can do to continue to increase 
that will be of value to us.
    Senator Reed. Thank you.
    General Fraser, you have an area of the world which is very 
close to us. One of the lessons I think we've learned worldwide 
is that governmental capacity is such a critical element of 
stability. I wonder if you will undertake an assessment of the 
governmental capacity of the countries in your areas of 
operations as a leading-edge indicator of where problems might 
exist.
    General Fraser. Senator, thank you for that question. As I 
understand it and as I've studied what SOUTHCOM is already 
doing, I think they already have a very robust program that 
looks to do that, a very interagency, very cooperative program. 
The issues we deal with in that region, I think, reflect that. 
It's a whole-of-government approach, it's an interagency 
approach, it's an international approach. So, yes, sir, if 
confirmed, I'll continue efforts along that line.
    Senator Reed. Thank you.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Reed.
    Senator Thune is next.
    Senator Thune. Thank you, Mr. Chairman.
    Let me echo what's already been said. You all are extremely 
qualified. I can't think of individuals who are better equipped 
to serve in the posts for which you're here this morning. I 
want to thank you for that service, and also add my 
appreciation to your families for the sacrifice that they make 
each and every day so that you can continue to serve our 
country with such distinction.
    I also want to associate myself with the remarks that were 
made by Senator Lieberman earlier, and also Senator Inhofe, 
with regard to the third site in Europe and the danger imposed 
by the Iranian threat. Admiral Stavridis, you have made some 
fairly strong comments in that regard, and I also want to 
express my support for that view. I think it's just really 
important that we continue to pursue that undertaking.
    General McChrystal, if I might--the core goal of the new 
AfPak strategy is to destroy the extremists and their safe 
havens within both Pakistan and Afghanistan, and you would 
imply from that, I think, that it's not necessary to form a 
coalition government or a reconciliation of political elements 
in Afghanistan, as General Petraeus did in Iraq. It seems, 
rather, that the goal requires only that an agreement be 
reached with the Taliban to block al Qaeda operations in 
Afghanistan.
    My question is, is it acceptable, in your opinion, to have 
the Taliban once again in charge of Afghanistan if they agree 
to deny al Qaeda safe haven in Afghanistan?
    General McChrystal. Senator, I find it very unlikely that 
the Taliban would make a credible agreement to do that. So, I 
would have a difficult time even speculating.
    That said, I think that the President's intent, and my 
belief, is that we need to create in Afghanistan a state that 
would not allow the return of safe havens. In my view, I think 
that means it's going to have to be a government that may be a 
working coalition that may have some former Taliban. But, right 
now, based upon Taliban statements, I can't see them being a 
credible official part of the government.
    Senator Thune. The Washington Post report, on April 29, 
that Pakistan's inability to slow Taliban advances has forced 
the administration to shift its Afghan-Pakistan strategy from a 
step-by-step process of greater engagement with Pakistan to a 
more accelerated approach. I'd be interested in knowing what 
that shift in strategy will do, in terms of affecting your job 
in Afghanistan.
    General McChrystal. Sir, I actually think it's positive. I 
think the degree to which Pakistan shows the resolve which they 
have shown lately, and their willingness to go after what they 
view as an important internal problem and let us partner and 
help them in any way possible, I think that's positive. If we 
can, in good faith, do that, I think we continue to build a 
strategic partnership that I think is important for the long 
haul.
    Senator Thune. I'd like to get at one other issue--and, 
again, I'd address this to General McChrystal--dealing with the 
issue of corruption in Afghanistan. There is, of course, a lot 
being written about it. According to Sarah Chayes, who operates 
an economic cooperative in Kandahar and appeared as a witness 
before the Senate Foreign Relations Committee earlier this 
year, corruption so widespread that nearly every citizen 
interaction with the government results in some form of 
shakedown. Traveling along the roadways requires one to pay a 
bribe at each police checkpoint. According to Ms. Chayes, ``To 
pay your electricity bill, you have to go to eight different 
desks in two different buildings, and you have to pay bribes in 
order to have the privilege of paying your electricity bill.''
    This sort of unchecked dishonest form of governance, I 
think, really is obstructing our progress in Afghanistan. As 
she has noted, people, in some cases, prefer probably to live 
under the Taliban because of the excruciating difficulty that 
they encounter with the corruption in the government. In fact, 
I think that's what brought the Taliban to power back in 1994.
    My question is--if we don't work to clean up the corruption 
in the Afghan Government, we may not be able to win this war, 
and the question is, what, if confirmed, can you do, in terms 
of taking steps that would implement our new strategy there, 
that would lead to more honest government and end some of this 
corruption that is really plaguing the government and our 
ability, I think, to be successful there?
    General McChrystal. Sir, I concur with what both Sarah told 
you and also what you've stated, in terms of corruption. I 
think it has a corrosive effect that undermines the legitimacy 
of any government, particularly Afghanistan right now, where it 
is a real problem, and it is perceived by the people to be a 
real problem. I think we need to help them at every level, 
partnering with them to try to work out corruption. I don't 
think there is a way we can suddenly take a society that, after 
30 years of war, has developed some bad habits, and wring it 
out suddenly. But, I do think constant pressure on it, at the 
ministerial level--and I would look to partner with Ambassador 
Eikenberry and his team to try to provide people at each level 
to work, and then, out more locally, things like Provincial 
Reconstruction Teams (PRTs) and our forces to put pressure on 
it to try to reduce it. I think it's one of the things that 
must be reduced for the government to be legitimate, and 
therefore, for the people to trust it.
    Senator Thune. Do you see us having any kind of success 
there, long term, absent a functioning--and ``clean'' is 
probably too much of a word to use, but at least a capable, 
accountable, and at least effective government in that country?
    General McChrystal. No, sir. It may not look exactly like a 
structure of our Government, but it has to be functioning, it 
has to be perceived by the people as legitimate.
    Senator Thune. Okay.
    I want to come back to one other question, I think, that 
was asked earlier by Senator Reed, and it has to do with the 
issue of the command structure there, and how that sometimes 
has hampered our efforts, as well. Critics often point out that 
part of the problem in Afghanistan is the lack of unified 
effort among our allies, and that we managed to cripple our 
effort, because there's not broad coordination or vision, and 
that there's confusion about strategy and tactics and 
operations and those sorts of things. You've touched on this 
already. I would direct this to you, General, and to Admiral 
Stavridis, as well, about what can be done to establish a more 
unified effort, especially as we contemplate pouring troops 
into Afghanistan.
    General McChrystal. Sir, I think the first point I'd make 
is, it's not as clean and as unified as we might like. On the 
other hand, the nature of coalition warfare is such that you 
bring a number of partners together with different values, 
different goals, different habits, and you get them to work 
together. At the end of the day, I think you have to judge 
whether you get more from fighting as a coalition than you give 
up by not having unity. I think, historically--and I think 
strongly--we get more out of being a coalition, and it's sort 
of like democracy, you pay for a certain lack of order, but the 
benefits are so great.
    I think what we have to do is work through it by 
overcommunicating, just constantly staying wired. There are 
probably some things we can do, as I mentioned, with the 
aspiration for General Rodriguez's role that would make us more 
effective.
    Admiral Stavridis. I would agree, and I would add that the 
command relationships are complicated, but they are not, in any 
sense, unworkable. I believe that the communication, and 
indeed, the friendship between myself, General McChrystal, 
General Petraeus, Ambassador Eikenberry, all of us well known 
to each other, will be very effective in then turning and 
working with our allies to try and create a holistic approach, 
a pallet upon which we can all paint our different pictures, 
and yet, have it come out as the picture we want.
    Senator Thune. In your efforts with our allies----
    Chairman Levin. Excuse me for interrupting, Senator Thune. 
I'm going to run and vote now. A vote has begun. After you, 
Senator Akaka would be next, and he will then identify whoever 
else is here.
    Thank you. Excuse the interruption.
    Senator Thune. One final point I want to make on that is, 
in your efforts to--as you strengthen and build some of those 
relationships with our allies, this issue of caveats is really 
problematic. If you talk to troops or commanders, it 
continually comes up, and it really does undermine and 
hamstring our ability to be effective. I understand there are 
certain, as you noted, limitations when you're dealing with a 
coalition effort like this, but I really hope that you all can 
home in on that and see if perhaps we can provide some relief 
from some of these, just--the conditions and caveats that some 
of our allies impose on our ability to get the job done.
    Admiral Stavridis. Sir, if I could, we spoke earlier about 
the importance of these OMLTs, these teams that we're going to 
try and bring together. That's at the very top of the priority 
list for me. I would say caveats would be the next. I sat down, 
in the course of preparing for this hearing, and read every one 
of the 69 caveats that applied to the various nations involved 
in this. It is complicated. It's worth mentioning, 18 of the 41 
countries are caveat-free, so there are examples, amongst the 
coalition, of nations, who do not place caveats upon 
themselves.
    So, I think by working with our allies, and, again, as 
we've talked about, trying to find where the absolute redlines 
are, but getting close and close and closer to those every day, 
will reduce the caveats. Again, that's, I think, an area where 
Stan and I will be working very closely together.
    Senator Thune. Thank you all very much.
    Mr. Chairman, thank you.
    Senator Akaka [presiding]. Thank you.
    Thank you very much, to our panel, for being here. Welcome 
and aloha. Congratulations on your nominations, also, thank you 
to your families. I know families are great supporters of what 
you do, and I know your outstanding leadership is due to the 
support of your families. Thank you all for being here.
    General Fraser, I would like to thank you very much for 
your steadfast leadership over the past year in the Pacific 
Command, under the leadership of Admiral Keating and yourself. 
The proud men and women of the Pacific Command have met the 
challenges of a very demanding region, and I want to thank you 
for your service out there as you move on to SOUTHCOM.
    General, SOUTHCOM is critical to our U.S. strategic 
objectives. If confirmed, what would be your top priorities for 
that region?
    General Fraser. Thank you, Senator. I see two basic issues 
that we need to work. One is, in my role there, it's the basic 
defense in defending the southern approaches to the United 
States. It is, and will remain, a key effort, but that's for 
the United States.
    I think the big thing within the region is an international 
and interagency approach. The issues that are resident there 
require us to take that approach. If I'm confirmed, my goal is 
to continue what Admiral Stavridis has so aptly done, and that 
is engage with the militaries in the region, engage in the 
interagency, engage internationally to continue to address the 
problems in the region, primarily poverty and income 
distribution.
    Senator Akaka. Thank you, General, for that. I'm glad to 
also know that you did spend your young life in that area, and 
for me, being knowledgeable of the culture of these areas makes 
a difference in the command there.
    General McChrystal, according to Secretary Gates, the goal 
in Iraq is to have a soldier in a medical facility within 1 
hour of being wounded. In Afghanistan, the response time has 
been closer to 2 hours. I applaud the initiative of Secretary 
Gates, in his defense budget, to improve the medical evacuation 
capability in Afghanistan. General, what is your current 
assessment of the medical evacuation issues in Afghanistan?
    General McChrystal. Senator, thank you. You're exactly 
right, what they refer to sometimes as ``the golden hour'' is 
how quickly you can get a casualty to the right level of care, 
and the medical outcomes affected by that, always to the 
positive if it's lower.
    Sir, we were behind in Afghanistan what we had in Iraq, 
just not nearly as many assets, plus not as many bases as 
distance to base. The Secretary directed some changes at the 
beginning of this calendar year. Many of those forces have 
already flowed in. Some of the others are still flowing, I 
believe, as part of the 82nd Combat Aviation Brigade. When all 
of those are on the ground, and some of the additional new 
bases are established, I believe that that time will be down 
very close to or about what it is in Iraq.
    If confirmed, one of the things I would look at closely is 
to make sure we maintain the ability to get our casualties--and 
that's all our casualties--coalition, Afghan, United States--to 
the right level of care quickly.
    Senator Akaka. Thank you.
    Admiral, a major focus of EUCOM is building partnerships 
and its capacity within the region. There are several security 
cooperation programs dedicated to building relationships. These 
programs conduct peacekeeping and contingency operations, and 
help minimize conditions that lead to conflict. What is your 
assessment of the partner capacity-building efforts of EUCOM?
    Admiral Stavridis. Sir, let me begin by saying I'm in 
complete agreement that this kind of effort, which we in the 
military sometimes call ``phase zero,'' meaning working very 
early on in the problem to build partnership capacity, is 
crucial to the security of our Nation, and indeed to global 
security.
    I have used those programs very effectively. We alluded to 
them a few moments ago. Sometimes called 1206, 1207, 1208, 
building partnership capacity funds in SOUTHCOM. If confirmed, 
I'd like to take that same approach with me to EUCOM.
    From what I can see at a distance, not having traveled 
forward, General Craddock is doing a very good job of using 
those funds, as well, particularly in Eastern Europe and in the 
Caucasus, and if confirmed, I would seek to build on his good 
work.
    Senator Akaka. Thank you.
    General McChrystal, DOD has made significant progress 
caring for our returning warriors that have been diagnosed with 
mental health issues, but because of the stigma association, 
many don't seek assistance that is required. We must get the 
message to our warriors that one of the most courageous acts is 
reaching out for help.
    General, if confirmed, what would you do to continue the 
efforts to tear down the stigma that deters many from seeking 
counseling?
    General McChrystal. Sir, I think primarily just talk to 
leaders. We've had some senior leaders who have very publicly 
sought help, and I thought that was hugely helpful. I would 
continue to talk to our leaders and try to convince them that, 
obviously, they don't have to pretend they need help if they 
don't need it, but to break down the walls on the stigma of it. 
It really begins with leadership at every level, all the way 
down to squad and team leader, to take that away.
    Senator Akaka. Thank you very much.
    Senator Wicker.
    Senator Wicker. Senator Akaka, I'm on the horns of a 
dilemma. I understand you haven't voted.
    Senator Akaka. No.
    Senator Wicker. Neither have I. I'd have a lot more 
confidence that they'll hold the vote open if you could get 
some assurance from the Majority Leader. My questions may be 
brief, therefore. But, I certainly appreciate the hearing. It's 
been very educational.
    Admiral Stavridis and Lieutenant General McChrystal, both 
of you said that you believe the Afghan army end strength will 
have to be higher than they are currently projecting. Is that 
correct?
    Admiral Stavridis. Based on very preliminary and from-a-
distant look at everything, but that's my intuition.
    Senator Wicker. Okay, so that's your intuition. I guess 
it's an intuition on the part of General McChrystal, too, 
because, General, you are not willing to speculate on your 
predecessor's request for an additional 10,000 American troops. 
So, square that with us, if you can. What's the estimate, from 
both of you gentlemen, on how much higher than 134,000 the 
Afghans might need to go, and how are you able to say that and 
not give us an estimate on the 10,000?
    General McChrystal. Yes, Senator. When you look at the 
Afghan requirement, I look at the police and the army together, 
because together they form the security that the government 
has. I think that it's about, I think, 80,000 policemen right 
now, a little bit more than that, approved already, about 
82,000 to 84,000 military. You have about 160,000 total. I 
think we can literally just look at the size of Afghanistan and 
the size of the population, and you can extrapolate out, even 
without a significant insurgency, that would be a challengingly 
small number of security forces to have. With an insurgency, I 
think you factor it in.
    I am reticent to speculate on U.S. forces, because I just 
want to get on the ground. We haven't even gotten the 
additional forces the President authorized there yet, so I'd 
like to see them on the ground, see the impact we're having 
before I feel comfortable giving that kind of estimate.
    Senator Wicker. Okay. You are, all three, going to be 
involved in counternarcotics. Let me start with you, Admiral 
Stavridis. Are you proud of the 10-year history of Plan 
Colombia? Are there fewer drugs coming from Latin America, as a 
whole, because of this? What advice, based on that, will you 
have for General McChrystal in the field with the poppies, and 
for your successor in South America? Are we thinking outside 
the box enough, in terms of fighting the narcotics? I know we 
want them to go to alternative crops. Are we thinking outside 
the box, in terms of addressing the demand for narcotics, which 
we know will still be there, and thinking of ways to address 
that question, not only from the supply side, but the demand 
side?
    Admiral Stavridis. Senator, as I have testified on numerous 
occasions, any counternarcotics effort is composed of three 
interlocking tasks. One is the demand side, which you just 
alluded to. One is the supply side, which gets into crop 
substitution and those kinds of things. One is the interdiction 
piece, trying to understand the supply chain, reverse engineer 
it, and kill it. Those three things have to work together.
    If I have advice for General McChrystal or advice for 
General Fraser, it would be to understand that you can't 
attempt to use precision-guided ideas, if you will, to go after 
one single part of a counternarcotics problem. You have to have 
a robust demand side. You have to have an enlightened supply-
side approach, which, again, crop substitution, I think, is 
very central to, but really encompasses the entire realm of 
development. Finally, you have to have capability in the 
middle, in the interdiction piece. That's where I think General 
Fraser will find great challenge in SOUTHCOM, because the 
distances are great, and I think General McChrystal will be 
working very hard on the supply side of this.
    At the end of the day, the solutions are international, 
interagency, local security, and, I think, also with an 
additional component of strategic communications. It's very 
important to convince people not to use it, on the demand side, 
as you talked about, and also to convince them to quit growing 
and producing it, on the supply side. These are immense tasks.
    Senator Wicker. Although we've made progress in Colombia.
    Admiral Stavridis. We have made progress.
    Senator Wicker. Can you address the question about overall 
drug trafficking from Colombia and the neighboring region?
    Admiral Stavridis. There is still an extremely high level 
of drugs flowing through the region, Senator, as you well know.
    To your point about, ``Are we thinking out of the box 
enough?'' I think that's an area where we need more creative 
thinking. To give you an example of the narcotic traffickers' 
innovative thinking, they're creating semisubmersible 
submarines to move cocaine from Colombia. This is a real 
innovation, a difficult challenge. We need to step up and take 
similar types of approaches on the interdiction side, as well 
as on the demand-and-supply sides.
    Senator Wicker. Thank you, gentlemen.
    Senator Udall [presiding]. Gentlemen, welcome. I want to 
congratulate all three of you on your nominations. I know 
you're careful to say ``if confirmed,'' but I'm confident that 
all three of you will be confirmed.
    I'm glad to have a chance to ask some questions today. I'm 
going to start with General McChrystal. We had talked before 
the hearing again, and I mentioned, I had a chance to travel to 
Afghanistan and Pakistan with Senator Hagan, Senator Begich, 
Senator Shaheen, and Senator Carper last week. It's hard to see 
a lot in 5 days, but we had back-to-back meetings, and we were 
in forward operating bases in Kandahar and Helmand. We also 
visited Lahore, in Islamabad. We did cover a lot of ground. We 
met with people on the ground who are working tactically to 
deliver the new strategy. We also had a chance to meet with 
many of the Afghan and Pakistan leaders, plus key American and 
NATO leaders, as well.
    General, I came up with the sense that the new strategy has 
a chance to work. No strategy can work if it doesn't have buy-
in, but I really had the feeling that this one clearly does. We 
met State Department personnel who were coordinating the influx 
of citizens and civilians for the new PRTs to the senior 
commanders, who talked a lot more about good governance than 
they did about weaponry or military tactics. All in all, there 
was just a feeling that we're on the march. In particular, the 
Pakistani political leaders were evincing real concern about 
the western regions of their country, not the eastern border 
with India.
    If I might, I'd like to just drill down into this concept 
of success. It's hard to define. Even a strategy with 
widespread support could fail. Could you talk about what 
success might look like in Afghanistan and Pakistan? You said 
you hope to see progress in 18 to 24 months. What might that 
look like?
    General McChrystal. Sir, I think it would have several 
components. I think, first, it would be a reduction or, 
hopefully, a complete elimination of al Qaeda inside Pakistan, 
where they mostly are now, with occasional elements inside 
Afghanistan. But, it would be essentially reducing their 
ability to either operate transnationally or to cooperate with 
elements like the Taliban in either country.
    Inside Pakistan, I think it's a return to stability and 
essentially their victory against their internal insurgency. 
They do have a functioning government with a strong history, so 
if they continue with their counterinsurgency campaigns and 
they get relative stability, then I think it sort of looks like 
that.
    Afghanistan has much further to go, because after 30 years 
of war, their economic infrastructure is, I believe, fifth 
poorest in the world. There's just not much to build on 
physically so they have to start by doing that. I think we 
achieve a level of security that allows each of the areas, to 
include those currently challenged by the Taliban, to bring in 
governance that is maybe locally based, but it is linked to the 
national government. So, when they think of their governmental 
chain, they may think locally, and it may be tribal, in a 
village, but when it goes back up the chain, it is absolutely 
recognized as going up through the district province and then 
to the national government. They are not challenged to the 
point where they have a Taliban shadow government.
    I think the other aspect of the Taliban, rather than 
destroyed--I'll steal a term that came from a bright young 
officer I worked with, he said, the challenge is to make them 
irrelevant, push them away from the population, and let them be 
irrelevant, a percentage of whom will, I believe, stop 
insurgency, and a percentage of them may not. Then, of course, 
you can allow actual governance and economic development to go. 
I don't expect a skyrocketing growth in the country, 
economically, but steady growth underpinned by solid governance 
is what I think success looks like.
    Senator Udall. I think, in a sense, you're distinguishing 
between the big-T Taliban and the little-t taliban. You talked 
about the hardcore Taliban elements that you believe are 
irredeemable, but you alluded to those Taliban who join the 
fight because that's what Afghans do in the spring, join the 
fight because it's the only way they can provide for their 
families.
    General McChrystal. Absolutely, sir. Like Admiral 
Stavridis, I'm a friend of David Kilcullen's, and I think a lot 
of what he says about ``the accidental guerrilla'' is true. I 
think what we have to do is eliminate the people who do it for 
other than just absolutely strong ideological reasons.
    Senator Udall. This may be a rhetorical question, but I 
want to ask it anyway. The al Qaeda situation is a large part 
of the problem in Afghanistan and Pakistan. But, if we were to 
capture or kill Osama bin Laden tomorrow, which is a goal we 
all hold, would the job be done in Afghanistan and Pakistan?
    General McChrystal. Sir, I don't believe it would. When I 
think of al Qaeda, I think that you cannot destroy al Qaeda, 
finally, until Osama bin Laden and Ayman al Zawahiri are gone. 
But, getting them gone doesn't conversely automatically cause 
al Qaeda to go away.
    Senator Udall. Yes.
    General McChrystal. I don't think it does.
    Senator Udall. An editorial comment from me. I know we've 
focused on Osama bin Laden a lot of the time, but his number-
two in command, the Egyptian, I think, is a serious target for 
us, as well. We'll continue that work, I know. That's a goal we 
all hold.
    We had a changing focus to the ANA and ANP, the Afghan 
Security Forces, in a meeting with Defense Minister Wardak. He 
agreed that the new strategy's stated goals of 134,000 ANA 
troops and 82,000 ANP personnel would not be sufficient. We had 
some additional conversations about the sustainability of a 
large Afghan force--how would we pay for it. Do you have any 
thoughts about that question that we face?
    General McChrystal. Sir, I agree, as I said earlier, I 
think a growth in the Afghan Security Forces, army and police, 
are likely to be required. I'd be surprised if we don't. 
Resourcing it, I think, is going to be a challenge, and I have 
not really seen a solid recommendation for that yet.
    Senator Udall. General Fraser, you have similar challenges 
on the counternarcotics front. Admiral Stavridis has to oversee 
all of this from his position in Europe. It would seem like 
there are some common lessons and approaches that we might be 
able to apply, both in Afghanistan and in the northern reaches 
of South America. Would you care to comment?
    General Fraser. Thank you, Senator. I do think there are 
great similarities between it, and I think, if confirmed, one 
of the challenges that I will have, that we'll all have, is 
communicating between one another. I will endeavor to do that, 
to make sure that we communicate what's working in one region, 
how that applies to what would work in another region so that 
we're crossing the boundaries, we're decreasing the boundaries 
and enabling one another to use the best practices, wherever 
they are, to success in our regions.
    Admiral Stavridis. If I could add, Senator, it's worth 
noting that we're in conversations at SOUTHCOM with our 
Colombian friends about the possibility of Colombian military 
engagement in Afghanistan. If that comes to fruition, it is a 
very direct and personal venue to have soldiers who have had 
experience in both counterinsurgency and counternarcotics 
transferring some of those lessons learned. I think, also 
important to note in that context, we talk a lot about NATO's 
involvement in Afghanistan, there are 28 NATO nations, but 13 
other countries that are also involved there. So, moving these 
lessons are very important.
    Senator Udall. Thank you. I see my time's expired. I would 
make one final comment--and, General McChrystal, you're well 
aware of this--that at one point before the last 30-year 
misadventure that's characterized Afghanistan, it fed much of 
the region; it has the potential to produce a lot of food. We 
did hear that, for example, the price of wheat can rival that 
of poppies. It's not as if we're trying to fight upstream when 
it comes to the markets there, but we do have to provide an 
alternative. We have to provide that security and that 
development opportunity for the farmers, particularly in the 
south of Afghanistan.
    Thank you again.
    Chairman Levin [presiding]. Thank you, Senator Udall.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    To each of you, having gotten to know all of you over the 
last many years, thank you for your leadership, thanks for your 
service, and Americans feel they're fortunate to have men like 
you in the roles that you are now. To your families, we say 
thanks.
    General McChrystal, I think I've seen you probably in 
theater more than I've seen you out of theater here in recent 
years, and I note those bars on your sleeve indicate you've 
been gone from home a lot more often than you've been at home. 
To each of you, thank you for that.
    Admiral Stavridis, I was in your ethnic home, over the last 
week, and had the opportunity to observe what's going on in 
Greece, particularly with regard to what's happening with the 
migration of folks out of Afghanistan and Pakistan through 
Turkey, through Greece, sometimes staying in Turkey, sometimes 
staying in Greece, causing some problems there. But, Turkey 
obviously is a very strategic country right now. Its European 
orientation, NATO membership, and enduring relationship make it 
a bridge of stability between the Euro-Atlantic community and 
the Nations of Central Asia and the Arabian Gulf. How would you 
describe our relationship with Turkey today? How has the 
situation in northern Iraq, with the Kurdistan Workers' Party 
and the Kongra-Gel, threaten that relationship?
    Admiral Stavridis. Thank you, Senator. Probably worth 
noting that, although I'm ethnically Greek, my grandfather was 
actually born in Turkey and came through Greece on his way to 
the United States. I think I have cultural understanding of 
both of those nations.
    Turkey is an incredibly important friend and ally to the 
United States. I would categorize our relationship at the 
moment from what I can see before going to theater, if 
confirmed, and actually meeting with our Turkish military 
counterparts, it is a strong relationship. We are conducting a 
great deal of information and intelligence-sharing with our 
friends. We recognize the threat to Turkey posed by the Kurdish 
separatist movements. I believe it is both an important and a 
strong relationship, and one that I intend to focus on, if 
confirmed.
    Senator Chambliss. General McChrystal, Afghanistan 
obviously is so closely tied with what's going on in Pakistan 
that it's going to be a very difficult situation for us there. 
As you and I talked the other day, a military solution in 
Afghanistan is one thing, but, at the end of the day, it's 
going to have to require a political solution to ultimately 
solve the issues there. One of those political issues that we 
have is what is taking place in Pakistan. How do you see the 
relationship between what's going on in Pakistan right now 
having a direct impact on Afghanistan? After your confirmation 
and being put in place, what are your intentions with respect 
to Pakistan?
    General McChrystal. Senator, thanks for your question. I 
view Afghanistan and Pakistan as absolutely linked, but not one 
and the same. Sometimes people use the term ``PakAf'' or 
``AfPak,'' and I think that may do a disservice to both of 
those countries, because both are very unique situations, 
unique people. I do believe, however, they suffer a very 
similar problem. In Pakistan, they now have what has become an 
internal insurgency. It's not strictly Taliban, although it 
uses that moniker. It's a collection of different groups that 
have essentially turned inward against the Government of 
Pakistan. Unless they can bring that insurgency under control 
and reestablish governance, I think that they will have 
tremendous problems. But, also it makes Afghanistan very 
difficult, because it offers a sanctuary, which any guerrilla 
force or insurgency benefits from, and makes it very difficult 
to defeat. A friend of mine used to use the analogy, it's like 
burning leaves in your backyard on a windy day; it just 
constantly will keep blowing over and causing problems. I think 
we have to see solution and progress in both countries almost 
simultaneously--the increase of governance, the reduction of 
the ability of elements like the Taliban to catch hold.
    Senator Chambliss. The 48th Brigade of the Georgia National 
Guard is back in Afghanistan. Again, you and I discussed this, 
and I look forward to visiting them and visiting you while 
they're over there. We continue to call on our Guard and 
Reserve on a very regular basis. It's no longer a volunteer 
service on their part, almost; it's a constant service. Not 
part-time, for sure. We've talked about the seamless 
integration of the Guard and Reserve. Can you talk for a minute 
about that? Any issues there that we need to be thinking about 
that you're prepared to implement that would change what's 
going on right now?
    General McChrystal. Sir, I think we've made a lot of 
progress in the last few years. As you and I discussed, I have 
a history with the 48th, back to about 1982, very close with 
that brigade. We do very well in the field. There is just not 
an issue in the field, and organizations work together. 
Sometimes we do have to employ organizations in smaller 
formations than they might like to be, the battalion or brigade 
level, and that's a challenge. But, it's a challenge, Active 
and Reserve component. I think it's legitimately looked at by 
all the commanders.
    I think the chairman has done an awful lot. He has General 
Craig McKinley very integrated now, as the Chief of the 
National Guard Bureau, in what he does. I sense progress there.
    Admiral Stavridis. Senator, could I add something?
    Senator Chambliss. Sure.
    Admiral Stavridis. The State Partnership Program, which was 
mentioned earlier, is a Guard and Reserve program that is just 
of seminal importance, based on my 3 years in SOUTHCOM, and, I 
think, throughout these regions. It gets to Stan's point about 
how smaller formations can have tremendous impact, particularly 
in these counterinsurgency situations. It's a real strength of 
the Guard and Reserve, sir.
    Senator Chambliss. Not unlike what we saw in Iraq, the 
training of the military and the enlistment of folks into the 
military in Afghanistan has been on the rise, and it appears 
that we have some very capable fighters; they've been fighting 
all their lives, so they certainly know what they're doing. 
But, on the other side of that coin, the security police is an 
issue. It has been, in Iraq. I think that still remains our 
weakest link there. I saw, in my recent trip to Afghanistan, 
the same thing in Afghanistan. General McChrystal, what's your 
direction, there? What's your thought with respect to how we 
continue, number one, to provide funding? Or, do we look to the 
Afghans for the funding? As far as the training, what about our 
partners? Are they stepping up and helping us like we need them 
to?
    General McChrystal. Sir, first, I absolutely agree with the 
assessment. I think that the army's come along well, although 
it has some challenges. The police are lagging a bit. We have 
not been able to put the level of mentoring or partnering with 
them out in as many locations, or the training down to as low a 
level, as will need to be to be effective. We'd like to see 
more help from our NATO partners. We are now going to do more 
with the deployment of the 4th of the 82nd, which actually 
goes, in late August and in September, that will essentially 
double our ability to do that. But, I think it's overdue. I 
think that will be progress. It may be all that's required to 
get them to the level needed.
    Senator Chambliss. General, Senator Levin and I serve on 
the board at the Western Hemisphere Institute for Security 
Cooperation (WHINSEC), and we've had a good working 
relationship with the admiral and folks at WHINSEC. We look 
forward to you being in place and continuing that strong 
relationship. We're doing good work down there. Again, just 
thank all of you for your willingness to serve and your great 
leadership.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I just want to once again welcome our men here today and 
thank you so much for your commitment to our country, to our 
military, to the men and women serving in the military, and, in 
particular, to their families, too. Certainly, welcome to all 
of the family members, your wives, and children. I know it's so 
important for you to have them here. The ones who aren't here, 
in spirit, I'm sure they're watching.
    But, as I'm sure Senator Udall said, he and I and several 
others just got back from a trip to Afghanistan and Pakistan, 
and it was certainly educational for me to be there, but to see 
the terrain that our military is working on, and obviously the 
heat, the need for equipment, the need for maintenance is also 
very important.
    It was interesting, as I'm sure you've heard, too, we had 
an opportunity to meet with President Hamid Karzai and 
President Asif Ali Zardari, a number of the other ministers, as 
well as the people in both countries. I certainly enjoyed 
talking one on one to the troops that I could speak with from 
North Carolina, and they are certainly proud, serving and what 
a good job they're doing.
    While we were there, it was interesting, too, Karzai, 
Zardari and Ahmadinejad actually had a joint meeting in Iran 
during that time, so it was interesting hearing Karzai's and 
Zardari's aspects on that meeting.
    But, in our meeting with President Karzai--and this is to 
Admiral Stavridis and General McChrystal--in our meeting with 
President Karzai last week, he emphasized the importance of 
defining the mission in Afghanistan and to work with Pakistan 
on the other side of the border. The feeling that al Qaeda's 
presence in Afghanistan has really shifted to Pakistan's 
Federally Administered Tribal Area (FATA), and specifically in 
Waziristan, and the fact that they've pretty much moved into 
the FATA area, but compounding the problem is that the Afghan 
Taliban High Command dwells in Quetta inside Pakistan's 
Baluchistan Province. The increased U.S. ground strength in 
Afghanistan, coupled with the coordination with the Pakistan 
Army and Frontier Corps, are critical in depriving al Qaeda and 
the Taliban of safe havens in Pakistan and preventing the 
cross-border attacks.
    My question has to do with keeping in mind Pakistan's 
sovereignty and reluctance for the United States to conduct 
operations inside Pakistan's FATA, what type of cross-border 
coordination strategy can we adopt with the Pakistan Army to 
deny the Taliban and al Qaeda safe havens there?
    General McChrystal. Yes, ma'am. I think that the idea that 
we would conduct operations in Pakistan in any extent is not 
valid, and nor do I think we would want to. I think the road to 
success in Pakistan is through the Government of Pakistan and 
through the Pakistani military and Pakistani police.
    It gets to the building-partnership-capacity kinds of 
activities that we have done with Pakistan, and hopefully will 
do with increasing effectiveness over the years, or in the 
years in the future.
    I think everything we can do to share intelligence with 
them, to share, in some cases, ISR assets, that sort of thing, 
to coordinate operations--there have been a number of 
coordination centers established--those are still growing in 
size and in scope. So, I think everything we can do to empower 
and increase their capacity is really the road we have to go 
inside Pakistan.
    Admiral Stavridis. I agree with General McChrystal 
completely.
    Senator Hagan. Another comment that we heard quite a bit 
about was in the Swat Valley, obviously the military operations 
going on there in Pakistan, and the number of the internally 
displaced people (IDPs) in Pakistan; it was numbering 2.4 
million while we were there. I was just wondering about any of 
the humanitarian needs and aspects that are taking place right 
now within Pakistan to help those huge numbers of people. Can 
you give me an update? Are you aware of any activity going on 
in helping, from a humanitarian aspect?
    General McChrystal. Ma'am, in my role as Director of the 
Joint Staff, we were working to provide, through U.S. Central 
Command (CENTCOM), whatever the Government of Pakistan 
requested. It did request some support. Maybe not as much as we 
expected at the beginning, but they have requested it, and we 
provided it. I think, again, that's key. I think the number of 
IDPs, if they hold the government responsible for their plight, 
obviously offer the chance for greater unrest. I think, right 
now, the sense is, they hold the Taliban, the insurgents, 
responsible. But, I think that has to be worked hard by the 
Pakistani Government, with whatever help the world can give.
    Senator Hagan. In Afghanistan, I met with the Minister of 
Interior Mohammod Hanif Atmar, and he indicated--it was 
interesting--that the ANP was undergoing a pilot program to 
allow females to actually accompany, with members of their 
families, their fathers or their brothers--to come in as police 
recruits within the ANP, in an effort to utilize family 
dynamics, to control violence, and to sustain order in the 
urban areas. Security checkpoints in Afghanistan are, in many 
cases, manned by men, and obviously there have been a number of 
female suicide bombers recently. What I understand, that the 
strategy of utilizing the women has been done effectively in 
Jordan, in performing security functions and countering female 
suicide bombers.
    It was interesting, too, Minister Atmar said that it was 
within several months that the enemy targeted its first female 
officer, and she was killed. But, I was just wondering if you 
were aware of that or what your opinion is on this initiative 
to recruit the Afghan women.
    General McChrystal. Ma'am, I was not aware of it, but, on 
the sound of it, makes absolute sense. When we deal with the 
cultural realities or sensitivities of any area we're operating 
in, the ability to adapt and get to the right person--I mean, I 
would guess that a female police officer could question females 
much more effectively, certainly, than a foreign soldier could, 
but probably even better than a male Afghan policeman. So, 
theoretically, I think it makes absolute sense.
    Admiral Stavridis. I would just add, ma'am, that this is an 
example of a program in which our allies could potentially play 
a very good role. Many of their police forces have cultural 
sensitivities that are different than ours and might be 
adaptable to this region. A good example of the benefits of 
approaching the coalition in a way that they can participate in 
comfortable ways for them.
    Senator Hagan. Thank you.
    General Fraser, multilateral cooperation on drug 
interdiction and cashflow and the smuggling of weapons is 
essential in maintaining stability in the SOUTHCOM region. It's 
also an area of significant overlap with U.S. Northern Command 
(NORTHCOM), particularly with regard to the smuggling of drugs, 
cash, cashflow, weapons across the border in El Paso to the 
Mexican state near there. To what extent do you foresee working 
with NORTHCOM on these issues? I know it's such a huge problem 
right now.
    General Fraser. Yes, thank you, Senator.
    A lot of the cocaine that flows into the United States 
flows through Central America into Mexico and then into the 
United States. SOUTHCOM has already initiated a very close 
relationship with NORTHCOM. They have liaison officers. They 
share a joint operating area with Joint Interagency Task Force 
South. They've had staff-to-staff talks. They continue that 
dialogue on a routine basis. I know Admiral Stavridis and 
General Renuart have a close working relationship.
    I've had the pleasure of working for General Renuart 
before, so I anticipate, and, if confirmed, I look forward to, 
continuing and building on the relationship that Admiral 
Stavridis has already done.
    Senator Hagan. Thank each and every one of you for your 
comments, and I look forward to working closely with you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I, also, want to compliment you on your careers. I think 
you're excellent choices for the jobs that you're about to take 
on, and I'm sure you'll be confirmed by the Senate.
    General Fraser, along the lines of what the Senator from 
North Carolina was asking, if you haven't had a chance to 
evaluate it, that's fine, but could you give me an opinion as 
to whether or not the fence we're building on the U.S.-Mexican 
border is helping, in terms of drugs and illegal immigration? 
Do you have a view of that?
    General Fraser. Senator, I don't have a view on that. I 
have not studied that.
    Senator Graham. Could you take a look at it and give me an 
opinion about that?
    General Fraser. Yes, sir. I'll take that and get back to 
you.
    [The information referred to follows:]

    Mexico is a part of the U.S. Northern Command (NORTHCOM) Area of 
Focus (AOF), as such the monitoring of the U.S.-Mexican border and the 
border fence issue fall under NORTHCOM responsibility. The border fence 
issue is not a situation directly monitored by U.S. Southern Command 
(SOUTHCOM). However, because of the shared linkages between Mexico and 
the SOUTHCOM AOF I am told that SOUTHCOM works closely with NORTHCOM on 
security in the region. I believe a border fence, while important, is 
just one aspect of the full spectrum of efforts required to secure the 
border. The requirement to monitor and enforce the sovereignty of not 
just the land portion of the border, but all domains that make up the 
border must be considered. Relying on a fence alone has the potential 
to simply drive illegal border traffic to other avenues which will in 
turn lead to border excursions via air, subterranean, and sea routes. 
It is my opinion that the greatest aid to protecting the sovereignty of 
the border is ensuring the prevalence and enforcement of law on both 
sides of the border.

    Senator Graham. General McChrystal, as I understand it, as 
we go forward, it's helpful to look back and see where we're 
at, a baseline in Afghanistan. Under the NATO operations, the 
Germans were supposed to train the police. Are they training 
the police now?
    General McChrystal. Sir, I'm not sure of their current 
role, but----
    Senator Graham. I think they're not. I think the U.S. Army, 
and particularly the National Guard, are training the police. 
We had several years lost, where one of our NATO allies who was 
primarily responsible for police training, and we, quite 
frankly, went nowhere. Now the U.S. military has taken over 
that job. The Phoenix Program seems to have a lot of potential, 
where you put mentors out in different regions to train the 
police.
    The Italians, Admiral, were supposed to be in charge of the 
judiciary. How well did that work?
    Admiral Stavridis. Sir, I don't have the details on it, but 
I think the current state of the judiciary in Afghanistan needs 
improvement, as well.
    Senator Graham. I can tell you, I think it was a miserable 
failure and that we now are having to take that job upon 
ourselves.
    Admiral, who was in charge of dealing with the drug 
eradication program originally?
    Admiral Stavridis. I believe the British were, sir.
    Senator Graham. I think we've had a different view of how 
to do it.
    The reason I point out these things is not to be overly 
critical of our allies, but you have the police, which are key 
to us winning, have gone nowhere for years; the judiciary, I 
think, has probably gone backwards; and when it comes to drug 
eradication, we're having to start all over again. So, both of 
you have a real challenge, here. We've lost time, money, and 
effort, and I want people in America to understand that you're 
taking over a NATO operation that has been less than 
successful.
    Now, Admiral, you said the outcome in Afghanistan is 
important to the future of NATO, but it's not a go or no-go. In 
my view, it is, that if NATO fails in Afghanistan, it will 
never recover. Is that off-base?
    Admiral Stavridis. Again, sir, I think it's critically 
important, and I think we're going to have to succeed, for a 
whole host of reasons, both national and international.
    Senator Graham. I say this because I support what the 
President's doing. I want the American public to know that this 
has been a NATO operation all along. That was a positive. It 
could be a positive, but, quite frankly, when it comes to 
implementing the war plan, the way to stabilize Afghanistan, we 
have not gone forward; we've, quite frankly, gone backwards.
    If we go to 160,000 Afghan-manned army, General McChrystal, 
how much will that cost, each year?
    General McChrystal. Sir, I don't have the figures. I can 
get them.
    Senator Graham. Okay. What's the entire budget for 
Afghanistan, their national government? How much money do they 
collect?
    General McChrystal. Sir, I don't have that figure right now 
either.
    [The information referred to follows:]

    The entire budget for the National Government of Afghanistan 
(expenditures) in 2008 was $2.7 billion and the total revenue was 
$887.5 million. Afghanistan also had $1.74 million which comes from 
unspent funds from the 2007 budget as well as new financing from 
various donors, including the Afghanistan Reconstruction Trust Fund, 
the Law and Order Trust Fund for Afghanistan, the World Bank, and Asian 
Development Bank. These figures come from the Defense Intelligence 
Assessment report, Afghanistan: Defense Economic Assessment.

    Senator Graham. Well, it's under $1 billion. So, the 
American people need to understand that we're about to build 
150-160,000-man Afghan army, which I think is the key to 
getting home, but we're going to wind up paying for it. We're 
having to pay for our own Army, we're having to carry a lot of 
burdens in the world. We are the arsenal of democracy. But, 
Admiral, don't you think it's fair to ask our NATO allies that 
it's in their self-interest to build a larger Afghan army so we 
all can come home being safe? They've contributed a whopping 
$100 million to this effort, is that correct?
    Admiral Stavridis. Yes, sir, I agree with you. Again, I 
think this is an area where persuasion with the allies is 
crucial. The trust fund needs at least $1 billion, and we're at 
$100 million--10 percent, so we have a long way to go.
    Senator Graham. I may be wrong, but I think the cost of the 
Afghan Army at that level's going to be $3 or $4 billion, at 
the very minimum. I hope our allies understand that the outcome 
in Afghanistan is important to them, just as it is to us.
    Now, everyone's asked about winning. Tell me the 
consequence of losing in Afghanistan or Pakistan.
    General McChrystal, walk me through. What would happen if 
America lost in Afghanistan and Pakistan collapsed?
    General McChrystal. Sir, I think, in the near term, and 
it's speculation to predict the future, but I think that what 
would happen is, it would break down into civil war. I don't 
believe that the Taliban would take over Afghanistan. I think 
it would go back to what it was before 2001, and that would be 
an ongoing civil war between different factions. I believe that 
al Qaeda would have the ability to move back into Afghanistan. 
I cannot imagine why they would not do that. I think that if 
there was then that kind of safe haven in Afghanistan, with the 
ongoing problem in Pakistan, I think Pakistan would find 
winning its insurgency very difficult, if not impossible, 
because that is----
    Senator Graham. Would it probably lead to the collapse of 
the civilian government in Pakistan?
    General McChrystal. Sir, I think it's very likely. Of 
course, that's a nuclear-armed state, so you have nuclear 
weapons under questionable control at that point. Sir, I think, 
wider, the entire region is affected by that.
    Senator Graham. Admiral, do you agree with that assessment?
    Admiral Stavridis. I do. I would add, as you just alluded 
to, at a minimum, the extreme demoralization of the NATO 
Alliance for having failed. So I'd add that to the list of bad 
outcomes.
    Senator Graham. As Senator McCain and Chairman Levin 
indicated, the American people need to understand this is going 
to be difficult, it's going to be more expensive, more lives 
are going to be lost, but I hope we understand, as a Nation, 
the consequences of losing. The benefits of winning are real, 
but the consequences of losing are equally real. That's why I 
support President Obama's efforts to interject more troops.
    Do you feel constrained at all, General McChrystal, to ask 
for more troops? Is there any political restrain upon you to 
ask for more troops if you think they're necessary? Do you 
think you could make that request without any concerns?
    General McChrystal. Sir, I'm not in the job yet, so I'm 
speculating on that. In a meeting yesterday, Admiral Mullen 
said if I was confirmed, to ask for what I need, that's almost 
a direct quote. He looked me in the eye and said that. So, I 
believe that, if I have a requirement, I can look Admiral 
Mullen in the eye and tell him, ``That's what I need.''
    Senator Graham. Do you think that's true of the 
administration, also?
    General McChrystal. Sir, I don't know.
    Senator Graham. Don't know. Fair enough.
    Detainee policy. Senator Levin brought up an example of 
where we had gotten off script in Afghanistan. I think, General 
McChrystal, you've done a lot to put us back on script there. 
But, Senator McCain mentioned a dynamic that the country needs 
to get braced for. I think there's almost 700 detainees in 
Bagram. A percentage, under 100, but close to 100 percent, are 
foreign fighters that I don't think will ever be sent to the 
Afghan legal system, because they don't want to try them, and 
that we're not going to find a third country to repatriate 
them. Don't you think we need a comprehensive detainee strategy 
regarding Afghanistan, future detainees who are foreign 
fighters, as well as what we do with the people in Guantanamo 
Bay, that it all goes together?
    General McChrystal. Sir, I think we need a comprehensive 
detainee strategy, not just Afghanistan, but worldwide, for 
anyone.
    Senator Graham. Yes, including Iraq.
    General McChrystal. Absolutely, sir.
    Senator Graham. Okay. Thank you all for your service. I 
look forward to working with you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I appreciate all three of you individuals coming by my 
office and visiting with our staff and with me. We've been able 
to have a lot of good discussions. I regret that we are unable, 
because of the Senate schedule, to have individual hearings on 
each of you, although I'm not sure you share that regret. 
[Laughter.]
    I remember when I went for my confirmation hearings, years 
ago, it was usually one individual in front of the entire 
committee.
    General Fraser, I look forward to working with you in a 
very energetic way, following on some of the discussions that 
we had and I also had with Admiral Stavridis before, 
particularly focusing on the impact of these transnational gang 
operations emanating from the area that you are going to be 
responsible for, but back up into American cities. It's a huge 
problem, and it's one that we are only now beginning to 
address.
    Admiral, I want to make a point for the record here, that I 
have some real concerns about what has happened to the NATO 
Alliance, not with respect to Afghanistan, but I guess the only 
phrase you can really use is international sprawl. If you look 
at the NATO that I worked with particularly when I was 
Assistant Secretary of Defense, I spent a lot of time in NATO, 
doing mobilization issues. It was really a different NATO. We 
have, on the one hand, I think, become a much more unilateral 
guarantor among the NATO countries for security issues, and, on 
the other, we have brought countries into the NATO Alliance, 
that traditionally could only be called ``protectorates.'' They 
really don't add, quite frankly, to the security of the United 
States to have them as members of NATO. We add to their 
security. All we have to do is take a look at what happened in 
the situation in Georgia last year and to contemplate what that 
would have looked like if they had actually been a NATO member, 
to understand the implications of that. There's not time today 
to have a full discussion of that, but I want you to know 
that's on my radar screen, and I will look forward to 
discussing it with you further.
    General McChrystal, first I would like to ask you--you 
commented that you would agree that our goal, in terms of 
increasing the ANA, would be higher even than is what is now 
proposed. Is that correct?
    General McChrystal. Sir, I believe that it would.
    Senator Webb. What would you say--I'm not asking you to 
pick a number out of the air, but would you agree with Senator 
Lieberman's approach on this?
    General McChrystal. Sir, I believe we have to look at it. I 
think some significant growth over what is already approved is 
probably going to be required, but I'd like to get on the 
ground to get a better idea.
    Senator Webb. You and I had something of a discussion about 
this, but can you tell me the largest national army that the 
Afghans have ever had?
    General McChrystal. Sir, I----
    Senator Webb. In size? The numbers that I've see were 
approximately 80,000 to 90,000, with Soviet backing; and, of 
those, only a marginal percentage really effective as a valid 
national army. We are talking about more than doubling what 
they have been able to do at any time in their past. Are you 
comfortable that that actually is achievable?
    General McChrystal. Sir, I know that it would be a 
challenge, for lots of reasons. Afghanistan has about 34-
million-person population, but it also is struggling with about 
28-percent literacy. As you develop the leadership core, you 
have the challenge that you have to teach people.
    Senator Webb. But, also a national army is a component of a 
viable national government.
    General McChrystal. Sure.
    Senator Webb. We saw this in Lebanon, when I was a 
journalist there in the early 1980s, where they attempted to 
create a national army, but because of the strong factions that 
had their own militia, it was basically impossible to have a 
national government that had that sort of reach. Do you think 
you're going to be able to do that?
    General McChrystal. Sir, I think it's one of the things 
that must be done. I believe that one thing the ANA can do, it 
can be one of the leaders of creating a more national view of 
the government. Right now, one of the good things about it is, 
it is viewed as national, not as of a certain sect.
    Senator Webb. Do you have an idea about how these monies 
are going to be paid to this national army? I don't mean how 
they are going to be raised, but actually how we're going to 
transmit these monies in a situation where we all agree there's 
high-level corruption in the government--I'm speaking 
principally in terms of transparency, so that we know actually 
where our money is going?
    General McChrystal. Sir, I don't, but I absolutely agree 
with you on the importance.
    Senator Webb. Okay. General, you and I talked about another 
issue, and I want to address it here. It relates to Corporal 
Tillman's situation, and his family's situation. I know you 
would agree, with your background, that the definition of 
``leadership'' goes well beyond battlefield competence, it goes 
to stewardship toward the people who have served under us. You 
would agree with that, would you not?
    General McChrystal. Absolutely, sir.
    Senator Webb. To their families?
    General McChrystal. Absolutely.
    Senator Webb. We have a situation here that I think is 
highly unusual in our history. I really mean that. You did 
mention other notable Americans who died of friendly-fire 
incidents on the battlefield--General McNair, Stonewall 
Jackson. I actually had an ancestor who fought under Stonewall 
Jackson and died at Chancellorsville. But, this is a situation 
where a very special American, with a unique intellectual and 
athletic background, forewent millions of dollars in order to 
serve his country, and there was a period where I believe the 
Army failed the family, when the knowledge was going up through 
the chain of command that this was a friendly-fire incident.
    I've been contacted by their family again, once your name 
was forwarded. I'm going to read from a 2005 letter from Pat 
Tillman's father, who is an attorney. He is very learned in 
these matters. He had been briefed by the Army in 2005. He 
said, ``No investigator worth a damn would have made the 
presentation I sat through unless they had an agenda different 
from the truth. The initial investigation was changed. 
Conflicting testimony was disregarded. Key evidence was 
destroyed and/or omitted. Witnesses, probably with supervision 
of superiors, changed their testimony. No one has been 
confronted with their conduct. The issue of importance is the 
integrity of the military''--this is from Pat Tillman's father, 
not from me, although I would agree--``from the lieutenant 
colonel on the ground all the way up and past General Jones.''
    The Inspector General of DOD acted on this. In their 
review, they said, ``Corporal Tillman's chain of command made 
critical errors in reporting Corporal Tillman's death and in 
assigning investigative jurisdiction in the days following his 
death, and bears ultimate responsibility for the inaccuracies, 
misunderstandings, and perceptions of concealment. Army 
officials failed to properly update family members when an 
investigation was initiated into Corporal Tillman's death, and 
that the justification for his Silver Star contained 
inaccuracies.''
    His brother, who also served our country with great 
sacrifice, testified, after this finding, saying that, ``The 
deception surrounding this case was an insult to the family, 
but, more importantly, its primary purpose was to deceive a 
nation. We say these things with disappointment and sadness. We 
have been used as props in a public-relations exercise.''
    Secretary Geren apologized. He said, ``We, as an Army, 
failed in our duty to the Tillman family and the duty we owe to 
all families of our fallen soldiers.''
    You have not, to my knowledge, been on record in terms of 
how you personally feel about this incident, and I would like 
to give you the opportunity to do that.
    General McChrystal. Thank you, Senator. I do appreciate 
that.
    I would say up front, I agree with Secretary Geren, we 
failed the family. I was a part of that, and I apologize for 
it. I would say that there is nothing we can do to 
automatically restore the trust, which was the second casualty 
of April 22. The first was the loss of a great American, the 
second was the loss of trust with a family, and, wider than 
that, with some additional people.
    I will say that it was not intentional, with the people 
that I saw. I didn't see any activities by anyone to deceive. 
That said, I do believe that the confluence of mistakes, either 
because they didn't know the policy or people just didn't line 
things up right--my own mistakes in not reviewing the Silver 
Star citation well enough and making sure that I compared it to 
the message that I sent--were mistakes. They were well 
intentioned, but they added to the doubt and the sense of 
mistrust, and we didn't get it right.
    To provide context, as you remember, Senator, we were still 
in combat when we were doing all of that. So, we were in combat 
in the days after his death as we did this. We were in the 
first battle of Fallujah in Iraq at the same time, so we were 
making mistakes. But, I would say the people who made them also 
were in a situation where you sometimes do make mistakes.
    That's not an excuse, but I would say that we've learned 
from it. I've learned from it.
    Senator Webb. First of all, I was at the Army Infantry 
School, giving a talk on lessons learned from Vietnam, the 
evening that we found out that Corporal Tillman had lost his 
life. I don't need to say to you the impact that had on the 
leadership. But, no matter what else is going on, with the 
enormity of that incident, in terms of national perceptions and 
the attention that it got nationally, and the fact that you 
were sending a private message, P4 message, up your chain of 
command warning about the potential impact of a friendly-fire 
incident, I regretfully say I think that the Army really failed 
the Tillman family. I appreciate your speaking about this 
today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    General Fraser, you have some experience in China. What do 
you think is the growing influence of China in South America?
    General Fraser. Sir, from my study there, what I see is 
that they have commercial interests, they have interests to 
gain access to natural resources. I see them working the same 
purposes in other parts of the world, also, not just influenced 
on and focused on Latin America. I do not see, from my study, 
that there is a military threat from that influence. All of it 
right now is focused commercially. I also see an interest on 
the part of Latin American Caribbean nations to gain access to 
markets in China, as well.
    Senator Bill Nelson. As we discussed, when you kindly came 
by to visit, that SOUTHCOM is a great command, headed by a 
four-star who is not only a warrior, but is also a diplomat. Of 
course, Admiral Stavridis has perfected that role. It had been 
done before by General James T. Hill. It's been evolving over 
time. What kind of twist do you see, as you apply diplomacy, 
with being a commander? Just give me some of your ideas as you 
take over this command.
    General Fraser. Sir, I think, from my standpoint, it's 
really about partnership-building throughout. That's 
partnership internationally, that's partnership with the 
interagency. From a specific SOUTHCOM standpoint, 
responsibility is for the military portion of that. But, it is 
working with the State Department, with the U.S. Agency for 
International Development (USAID), with the other Federal 
agencies involved there, also working with partner nations, 
armed forces, to build the capacities, build the capabilities 
that are there. So, if confirmed, I really look forward to 
engaging in all those arenas very robustly.
    Senator Bill Nelson. I think we're going to have to perfect 
this role, wherever we are projecting United States force in 
the future. General McChrystal, you and I talked about it, even 
in a war zone like Afghanistan, same thing. Now it's not just 
the United States military. The military can take the lead, but 
it's all the other agencies of government to work in projecting 
our power in order to secure the interests of the United 
States.
    Now, one area in your future command that is just still a 
basket case--I thought I'd ask Admiral Stavridis to comment on 
this--is Haiti. Then let's pick up the conversation, General 
Fraser.
    Admiral Stavridis. Senator, of course, you and I have spent 
some time on the road together, including Haiti, and it is, 
indeed, a nation in extreme distress. It's the poorest nation 
in the Americas. It's among the poorest countries in the world. 
It was devastated last summer by three separate major storms; 
two of them, high-level hurricanes. It has severe problems with 
soil erosion. I could go on and on.
    What am I encouraged by there? I'm encouraged by the United 
Nations peacekeeping force, which has done a superb job with 
very little U.S. military engagement. I'm encouraged by what 
our ambassador has done down there, Ambassador Janet Sanderson. 
I'm encouraged by the recent appointment of former President 
Bill Clinton. The situation is desperate, but not hopeless, is 
how I would categorize it at the moment, sir.
    Senator Bill Nelson. I personally think that President Rene 
Preval is really trying. What faces him is what faces 
sufficiently motivated elected leaders elsewhere in the world, 
is, underneath him is so much corruption.
    What do you want to do, General Fraser, since Haiti will be 
in your area of responsibility?
    General Fraser. Senator, I think it's very much along the 
line that I talked about earlier, and that is, a lot of the 
capability-building within Haiti, I think really still involves 
with an interagency approach. There's a lot of USAID, there's 
the State Department role. From my role, if confirmed for 
SOUTHCOM, it is really going in, assisting those agencies in 
their capacities, as well as working with the armed forces in 
Haiti, although they are small, to improve their capacity. It's 
an overall ability to go at the poverty, to work on the 
distressed incomes, just the overall capacity of the Nation. It 
will be an international and an interagency approach.
    I'm also, as Admiral Stavridis said, very encouraged by the 
continued presence of the United Nations mission there.
    Senator Bill Nelson. Admiral Stavridis, the chairman and I 
and Senator Collins went to Russia, and then Poland and the 
Czech Republic, and we came away convinced that, for the future 
threat of an Iranian missile with a nuclear warhead against 
Europe, that, in the foreseeable future, our Standard Missile-
3, and on ships placed in the Mediterranean, the Aegis system, 
and then upgraded over time, could take care of that particular 
threat. In the meantime, we want to make sure that our 
commanders in the field have the Standard Missile-3 and the 
Terminal High Altitude Area Defense system. Do you want to give 
us some of your ideas of this?
    Admiral Stavridis. I have, of course, talked to the 
chairman about this, as well as you in your office earlier. I'm 
very intrigued by the findings of the three of you, and I look 
forward, if confirmed, to immediately probing this, both from 
an Iranian-threat perspective and from the perspective of our 
military interlocutors in those countries and exploring this 
idea. Then if it makes sense, which it certainly seems to, 
pushing that forward as military advice to Secretary Gates, who 
would then take it into the interagency. At the end of the day, 
of course, this is a political/diplomatic decision that the 
administration would have to take. I think it's a very 
intriguing idea, as it's been outlined. I look forward, if 
confirmed, to doing the military piece of that along the lines 
you've described, sir.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    When you're referring to the possibility of the option as 
outlined, you're talking about the possibility of pursuing 
missile defense cooperation with Russia?
    Admiral Stavridis. I am. I think that's a very intriguing 
idea, sir.
    Chairman Levin. Thank you.
    There will be questions for the record. I know that I'll 
have some additional questions for you, General, particularly 
relative to the chronology of the detainee treatment issue in 
Iraq and Afghanistan, which we talked about briefly. There will 
be other questions, I assume, from other Senators, as well.
    We will stand adjourned, with thanks, again, to you and 
your families that provide the great support that makes it 
possible for you and so many others like you to serve this 
country.
    We stand adjourned.
    [Whereupon, at 12:14 p.m., the committee adjourned.]

    [Prepared questions submitted to ADM James G. Stavridis, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. They have 
also clarified the responsibility of the military departments to 
recruit, organize, train, equip, and maintain forces for assignment to 
the combatant commanders.
    Based on your experiences in U.S. Southern Command (SOUTHCOM), do 
you see the need for modifications of any Goldwater-Nichols Act 
provisions or the Special Operations reforms?
    Answer. Yes, I do.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The Goldwater-Nichols Act vastly improved the way our joint 
force operates. Today, our military functions extremely well in the 
joint world. I believe the next step toward increasing effectiveness of 
our national security apparatus is to institute similar provisions that 
encourage an interagency approach. Many working groups at the national 
level have been thinking through the possibilities for this kind of 
legislation, including the Project on National Security Reform. I 
believe this would increase efficiency in our whole-of-government 
initiatives. One of the ways to enable increased interagency 
cooperation is to incentivize interagency assignments throughout the 
government, and particularly within the military, similar to what 
Goldwater-Nichols did by incentivizing joint assignments.
    Additionally, there may be benefit in amending the Goldwater-
Nichols Act to encourage Professional Education in the civil service 
employee sector, as the original legislation did for military officers. 
As more of the force is civilianized, it is in the Department's 
interest to promote joint educational opportunities for civilian 
employees of the Department of Defense (DOD).
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. European Command (EUCOM) and the North Atlantic 
Treaty Organization's (NATO) Supreme Allied Commander, Europe (SACEUR)?
    Answer. The Commander of EUCOM is responsible for coordinating and 
conducting all U.S. military operations and activities across the 51 
independent states in the EUCOM Area of Responsibility (AOR) in pursuit 
of U.S. national military objectives. This AOR includes all of Europe 
(including Turkey), the Caucasus Region, and Israel. He is also 
responsible for the health, welfare and security of the approximately 
85,000 servicemembers forward deployed within that AOR. He coordinates 
the efforts of the Service component commands assigned to the European 
Theater.
    The NATO Military Command Structure assigns specific roles and 
duties to SACEUR. These include:

        <bullet> Strategic planning: Identifying and requesting forces 
        for the full range of Alliance missions and contributing to 
        crisis management and effective defense of NATO territory and 
        forces.
        <bullet> Operational leadership: Upon aggression, executes 
        military measures within the capability of the command to 
        preserve or restore the security of NATO nations.
        <bullet> Transformation: Cooperates with the Supreme Allied 
        Commander for Transformation (SACT) on integrating 
        transformation efforts. Contributes to stability throughout 
        Euro Atlantic area for developing contacts and participating in 
        exercises and activities with NATO and Partnership for Peace 
        (PfP) partners.
        <bullet> Strategic Analysis: Conducts strategic level analysis 
        to identify and prioritize type and scale of capability 
        shortfalls. Manages NATO allocated operation and exercises 
        resources to accomplish operational missions as directed by the 
        North Atlantic Council (NAC).

    The responsibilities of the Commander EUCOM and the SACEUR are 
complementary. The fact that they have traditionally been vested in one 
officer facilitates near-seamless coordination between the U.S. and 
NATO military command structures.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am deeply honored by the President's nomination to be 
SACEUR and Commander, EUCOM. Over the past three decades, I have served 
in a wide variety of Navy and Joint Commands that I believe have 
prepared me well for the challenges ahead if confirmed by the U.S. 
Senate.
    Operationally, I have served in several key operational command 
positions for the Navy, including destroyer and destroyer squadron 
command, and culminating in command as a Rear Admiral of a Navy Carrier 
Strike Group, which conducted operations in the SOUTHCOM AOR as well as 
in the Mediterranean and the Arabian Gulf. I have also served on the 
Joint Staff, the Secretary of Defense Staff, the Secretary of the Navy 
Staff, and Chief of Naval Operations Staff. During my time in each of 
these locations, I actively worked on issues involving EUCOM's AOR, as 
well as NATO military issues.
    Most recently, I was the Commander of SOUTHCOM, an interagency 
oriented combatant command whose mission is to conduct military 
operations and promote security cooperation to achieve U.S. strategic 
objectives in the Americas. Although the issues are vastly different 
and unique in each region, there are some basic principles that are 
shared among geographic combatant command regions that I would bring to 
Europe, if confirmed.

        <bullet> International - Building the capacity of our partners 
        ensures stronger defense for the United States and our allies 
        and takes some burden off of our troops.
        <bullet> Interagency - Cooperation is important to address the 
        complex spectrum of issues facing any region. I am a military 
        officer, so if confirmed as SACEUR, I will ensure security of 
        the United States and our allies. However, there is more to the 
        region's stability than just defense. While State Department 
        does Diplomacy and U.S. Agency for International Development 
        (USAID) works on Development, we of course focus on Defense. I 
        believe our success will depend on all of us working together 
        in a robust interagency approach.
        <bullet> Cultural understanding - In order to truly cooperate 
        successfully with our allies, we must walk in their shoes and 
        understand their culture. This is a lesson learned from my time 
        at SOUTHCOM.
        <bullet> Strategic communication - important in any part of the 
        world - The United States must get our message out in a way 
        that resonates with our international allies, as well as our 
        own citizenry.
        <bullet> Counternarcotics and Counterinsurgency - Dealing with 
        the challenges of narcotics has clearly been a large part of my 
        portfolio at SOUTHCOM and there are lessons learned that I 
        could bring to Europe and Afghanistan. I do not believe in the 
        term ``war on drugs,'' but rather on a shared international, 
        interagency, and even private-public approach to dealing with 
        this issue.

    Other specific experiences and background include:

        <bullet> Ph.D. in International Relations from the Fletcher 
        School of Law and Diplomacy at Tufts University, where my work 
        was partially focused on NATO.
        <bullet> I have been involved in multiple NATO operations 
        throughout my career, including operations in Haiti, the 
        Balkans, and Afghanistan.
        <bullet> Working knowledge of Spanish and French, and am 
        currently studying Portuguese.
        <bullet> Lived in Europe for 3 years in my youth and have 
        traveled extensively throughout the region.

    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
EUCOM, or NATO SACEUR?
    Answer. If confirmed, I will engage with key officials and 
personnel within the executive and legislative branches of the U.S. 
Government to uphold and advance the national policies and interests of 
the United States for the region through the missions established and 
executed within the command. To this end, I will also engage with the 
governments and militaries of our allies to understand the magnitude 
and interdependent issues within the region. I will seek the 
cooperation of the Alliance leadership to work together to engage on 
vital regional issues. I will also continue to study the languages and 
culture of the region to better understand the populations with which I 
would be engaging.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, EUCOM/NATO SACEUR, 
to the following:
    The Secretary of Defense.
    Answer. The Secretary of Defense exercises authority over the Armed 
Forces through the EUCOM Commander for those forces assigned to the 
EUCOM AOR. The EUCOM Commander exercises command authority over 
assigned forces and is directly responsible to the Secretary of Defense 
for the performance of assigned missions and the preparedness of the 
command.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense is delegated full power and 
authority to act for the Secretary of Defense and to exercise the 
powers of the Secretary on any and all matters for which the Secretary 
is authorized to act pursuant to law. The EUCOM Commander coordinates 
and exchanges information with the Deputy Secretary on matters 
delegated by the Secretary. The Commander directly communicates with 
the Deputy Secretary on a regular basis.
    Question. The Under Secretary of Defense for Policy.
    Answer. A direct command relationship between the Under Secretary 
of Defense for Policy and the EUCOM Commander does not exist. However, 
the EUCOM Commander regularly interacts, coordinates and exchanges 
information with the Under Secretary of Defense for Policy on policy 
issues relating to NATO, European, and Eurasian affairs. The commander 
directly communicates with the Under Secretary of Defense for Policy on 
a regular basis.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. There is not a direct command relationship between the 
Under Secretary of Defense for Intelligence and the EUCOM Commander. 
However, the EUCOM Commander regularly interacts with, coordinates and 
exchanges information with the Under Secretary of Defense for 
Intelligence on intelligence related matters.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. There is not a direct command relationship between the 
Assistant Secretary of Defense for International Security Affairs and 
the EUCOM Commander. The EUCOM Commander and the Assistant Secretary of 
Defense for International Security Affairs work together on 
coordinating international security policy and strategy.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction, and 
control of the National Command Authority. The Chairman transmits 
communications between the National Command Authority and the EUCOM 
Commander as well as oversees the activities of the EUCOM Commander as 
directed by the Secretary of Defense. As the principal military advisor 
to the President and the Secretary of Defense, the Chairman is a key 
conduit between the combatant commander, interagency, and Service 
chiefs.
    The EUCOM Commander keeps the Chairman informed on significant 
issues regarding NATO and the EUCOM AOR. The Commander directly 
communicates with the Chairman of the Joint Chiefs of Staff on a 
regular basis.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of Military Departments are responsible for 
administration and support of forces that are assigned or attached to 
the EUCOM Commander. The Secretaries fulfill their responsibilities by 
exercising administrative control through the Service component 
commands assigned to EUCOM.
    Question. The other combatant commanders, in particular Commander, 
U.S. Central Command.
    Answer. Formal relationships between the EUCOM Commander and the 
geographic and functional combatant commanders derives from command 
authority established by title 10, U.S.C., section 164. Combatant 
commanders closely coordinate as necessary to accomplish all assigned 
missions.
    Question. Commander, International Security Assistance Force.
    Answer. The EUCOM Commander has no formal relationship with 
Commander, International Security Assistance Force (ISAF); however, COM 
ISAF is ``dual-hatted'': 1. As the Commander U.S. Forces in Afghanistan 
he reports to Commander, U.S. CENTCOM (national C2); 2. The SACEUR 
exercises command authority over the Commander ISAF via the Commander, 
Joint Forces Command Brunssum in the Netherlands (operational C2).
    Question. The Supreme Allied Commander for Transformation.
    Answer. Both NATO's Strategic Commanders, SACEUR and SACT, carry 
out roles and missions assigned to them by the NAC or in some 
circumstances by NATO's Defence Planning Committee. SACEUR and SACT 
work together to ensure the transformation of NATO's military 
capabilities and interoperability that support Allied Command 
Operations.
    Question. The U.S. Permanent Representative to the North Atlantic 
Council.
    Answer. There is not a direct command relationship between the U.S. 
Permanent Representative to the NAC and either the EUCOM Commander or 
the SACEUR. The NAC provides direction to NATO military authorities and 
the U.S. Permanent Representative is one of 28 members of the NAC. The 
EUCOM Commander works with the U.S. Permanent Representative on matters 
of mutual interest, such as EUCOM military operations and security 
cooperation activities that support U.S. objectives and military 
contributions to NATO.
    Question. U.S. Chiefs of Mission within the U.S. EUCOM AOR.
    Answer. There is not a formal command relationship between the 
EUCOM Commander and the U.S. Chiefs of Mission for the 51 independent 
states in the EUCOM AOR. In a foreign country, the U.S. Ambassador is 
responsible to the President for directing, coordinating and 
supervising all U.S. Government executive branch employees in the host 
nation, except those under the command of a United States area military 
commander. The EUCOM Commander coordinates and exchanges information 
with U.S. Chiefs of Mission regularly on matters of mutual interest, to 
include military operations and engagement activities that support the 
Ambassador's approved in-country U.S. strategy for engagement. In 
addition to the regular exchange of information with the U.S. Chiefs of 
Mission, past EUCOM Commanders have hosted regional conferences. If 
confirmed, I intend to continue this practice.
    Question. U.S. Ambassador to Afghanistan
    Answer. As the EUCOM Commander, I have no formal relationship with 
the U.S. Ambassador to Afghanistan. In my role as SACEUR, while no 
formal relationship exists, I would expect to periodically meet 
informally with the various NATO nations and partner nation ambassadors 
to Afghanistan--for which the U.S. Ambassador is 1 of 42--to garner 
their perspectives, as well as address their questions.
                            major challenges
    Question. In your view, what are the major challenges and problems 
you would confront if confirmed as the next Commander, EUCOM, and 
SACEUR?
    Answer. As SACEUR, one major challenge to be confronted is 
successfully conducting the Alliance military operations in support of 
Trans-Atlantic Security, including ISAF in Afghanistan, Kosovo Force 
(KFOR), Operation Active Endeavor, and Operation Allied Protector. All 
of NATO's forces, from Kosovo to ISAF to those conducting counter-
piracy and other missions, deserve the best guidance and planning as 
well as the necessary resources and support to conduct operations. Of 
these operations, ISAF will likely prove to be most important to our 
security as well as pivotal to the Alliance's further adaptation of 
strategies, capabilities, and internal processes to address the myriad 
of 21st century risks and threats confronting our Nations. ISAF not 
only reflects the Alliance's will to address the instability in a 
country destabilized by extremism and terrorism, but it reflects the 
Alliance's will and capability to conduct operations at strategic 
distance outside the traditional NATO area. Success in Afghanistan will 
contribute to stabilizing a very important region and demonstrate that 
NATO in the 21st century is politically prepared and militarily capable 
of dealing successfully with risks and threats to Trans-Atlantic 
Security at strategic distances far from the borders of the U.S. or 
European members.
    Second, we face the challenge of resetting the NATO-Russia 
relationship and building a predictable, mutually-beneficial 
relationship that strengthens security. Military cooperation with 
Russia should figure prominently in the reset of this strategic 
relationship. This relationship has been stressed by policy differences 
over the years, and continues to be a complex relationship given the 
comprehensive nature of U.S.-Russia engagement across the full spectrum 
of regional and global security matters. It is a strategic relationship 
that we must get right, and one that the Russians must demonstrate that 
they value in both words and deeds. There is great opportunity in the 
U.S.-Russia relationship as well as great challenge. In many cases we 
share common strategic challenges that present opportunities for 
beneficial engagement, such as countering the proliferation of weapons 
of mass destruction. I look forward to working in support of overall 
U.S. national security objectives to help forge a constructive, 
reliable, and predictable relationship with Russia.
    Third, the Heads of State and Government tasked the NATO Secretary 
General to develop a new strategic concept for the Alliance. The last 
concept was developed in 1999. A new NATO strategic concept is 
crucially important to forging a common perspective on the regional and 
global security environment; the risks and challenges we face in the 
21st century such as energy security, cyber defense, or counter 
proliferation; the role Alliance members want NATO to play in 
addressing these risks based on a common perception and common goals; 
and the strategies, capabilities, and internal processes necessary to 
successfully be prepared. The Alliance will engage in debate on these 
important issues. My initial assessment is that the military 
authorities will seek a balance of collective defense and global 
operations. Once the political leaders reach consensus, further 
development of military tasks and defining capabilities will be no easy 
task and must be done with a realistic understanding of the means 
available. I look forward to contributing my military advice to the 
development of a new NATO Strategic Concept, a concept that will drive 
and frame NATO's role in the international security sphere for years to 
come.
    Finally, French reintegration into the NATO military structure 
would also be a key area of focus. As France has always been a very 
active partner in NATO's ongoing operations, their reintegration is 
nominally only a ``formal'' step to capture their current 
participation. Their further involvement in NATOs military command 
structure will provide an avenue for greater involvement--especially in 
the planning processes.
    In addition to the above stated challenges, I believe there will be 
additional challenges facing the next EUCOM Commander such as defense 
cooperation in Eastern Europe and further progress in the Balkans, 
especially Kosovo.
    As the focus of European security continues to shift from Central 
to Eastern Europe, EUCOM strategic plans and activities to address the 
challenges in Eastern Europe and Eurasia complement NATO efforts to 
strengthen new Alliance partner capability in this region. EUCOM 
efforts to stage U.S. forces in Bulgaria and Romania will focus on 
military-to-military activities that continue to build the military 
capacities of new NATO Alliance and prospective Alliance countries 
along with strategic partners in Eastern Europe and Eurasia. Ukraine 
and Georgia, considered exceptionally important countries in the EUCOM 
AOR, will continue the trend of bilateral relationships and capacity 
building. EUCOM continues to assist both countries with their NATO-
oriented defense transformation and institution-building efforts, which 
have begun to bear fruit with peacekeeping presences in Kosovo, 
Operation Active Endeavor, and Africa.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. In the previously mentioned areas, the key to success will 
be proactive engagement and clear direction. The next SACEUR and EUCOM 
Commander must establish clear priorities and provide a strategic 
vision to guide transformation, foster relationships, and set the 
conditions for successfully implementing the full spectrum of measures 
necessary to contribute to security. Additionally, constant 
reassessment of these challenges and coupled with the ability to adjust 
will be critical enablers as we address evolving security challenges in 
the EUCOM AOR.
    NATO has provided for peace and security in Europe for 60 years 
because of an unwavering commitment to the founding principles and the 
understanding that the best solution will always be found in working 
together. The strategic landscape is continually evolving and SACEUR 
must continually engage military and political leaders to understand 
the range of perspectives inherent in an Alliance of 28 members. He 
must effectively communicate key elements required for military success 
both today and in the future. It is imperative the SACEUR work closely 
with the 28 nations of the Alliance, Partnership for Peace nations, and 
other special partners to forge common understanding of the challenges 
we face together and the measures necessary to address them together.
    If confirmed, my approach will be collegial, international, and 
interagency focused. I will also work hard to build effective strategic 
communications, which I believe are key to our work throughout the 
spectrum of challenges.
                 nato commitment to afghanistan mission
    Question. The NATO ISAF has grown and will include some 68,000 U.S. 
troops by this fall and more than 32,000 soldiers from NATO and other 
allies. NATO ISAF is responsible for providing security throughout 
Afghanistan and assisting the Government of Afghanistan in extending 
its authority.
    What challenges do you foresee for NATO ISAF as the 
administration's new strategy for Afghanistan and Pakistan is 
implemented?
    Answer. The new U.S. strategy for Afghanistan and Pakistan has been 
briefed to the NAC on numerous occasions by senior U.S. political and 
military officials. It is clear that NATO Allies support the new U.S. 
strategy, welcome the increased resources to be provided by the United 
States, and want to work with the United States in a NATO-framework as 
well as bi-laterally to support the range of political and military 
initiatives associated with the new strategy. NATO nations recognize 
the importance of ISAF and its contribution to the overall efforts of 
the International Community in Afghanistan. Enhancing security in 
Afghanistan through both ISAF operations and further developing the 
capacity of the Afghan National Army (ANA) and Afghan National Police 
(ANP) is essential to all other efforts in Afghanistan and the region 
and will be the greatest initial challenge of implementing the 
strategy.
    Question. How confident are you that NATO is prepared to sustain 
its long-term commitment to ISAF given the challenging security 
situation in Afghanistan? If confirmed, are there additional steps you 
would recommend in order to help sustain that commitment?
    Answer. From all that I can see thus far--but without the benefit 
of actually speaking to any allies personally--I am confident that NATO 
is capable and willing to fulfill and sustain its commitment to ISAF. 
The NATO Alliance took a significant step when it decided to conduct 
military operations in Afghanistan. That it did so reinforces its 
commitment to wider security and NATO's belief that this effort is 
central to continued peace and stability in Europe. It was a decision 
made with deliberation and a significant commitment of resources. Thus 
far, NATO forces have shown determination and resilience. The Alliance 
has given no indication as having any doubt in their decision and I am 
confident that member nations will stay the course in providing 
Afghanistan the stability and security it needs to move forward. If 
confirmed as SACEUR, I will continue to devote a high priority to force 
generation working with NATO nations and partners to maintain the 
appropriate forces and resources for the ISAF operation.
    Question. National caveats restricting the use of certain NATO 
members forces in Afghanistan continue to impede ISAF operations and 
are a source of friction within the alliance.
    What is your assessment of the impact of national caveats on NATO 
ISAF operations and how can their impact be reduced?
    Answer. In a perfect world, there would be no caveats, as they 
constrain the commander's ability to plan and limit capabilities to 
execute operations. Some caveats will reflect limitations imposed on a 
nation's forces by that country's constitution. Others reflect the 
military reality of a nation's inability to sustain its forces outside 
a particular geographical area, it is that inability which is the 
constraint, not the caveat that reflects it. Others apply to very small 
numbers of troops or personnel, contributions that show political 
commitment and solidarity, but which are at the limits of what some are 
capable of contributing. Where caveats have a sizeable effect on the 
commander's flexibility to achieve his mission, either through their 
content or the number and capabilities of the forces they affect, then 
we should devote all our efforts to addressing the issues which 
stimulated them in the first place, thereby removing them. I will work 
with national Chiefs of Defense individually and work with the NAC to 
explain the operational impact of national caveats and the importance 
of removing as many of them as possible.
                    command structure in afghanistan
    Question. The Commander, ISAF, has been dual-hatted as Commander, 
U.S. Forces Afghanistan, and reports to both the SACEUR and the 
Commander, U.S. Central Command. In addition, Secretary Gates has 
recently created a three-star position of Deputy Commander, U.S. 
Forces-Afghanistan (USFOR-A) to handle day-to-day operations in 
theater.
    What is your assessment of the command structure for ISAF and for 
USFOR-A?
    Answer. In general, the current ISAF command structure combines the 
military doctrine of `unity of command' with the special requirements 
arising from the multinational composition of ISAF--the key to 
successful allied operations. I support the Secretary of Defense and 
his recent decision to establish a three-star position of Deputy 
Commander, USFOR-A to handle day-to-day, tactical operations in 
theater. The operations in Afghanistan are complex for many reasons. 
The additional commander and headquarters will prove to be advantageous 
to the conduct of operations in theater. At the same time, this new 
structure will allow the ISAF Commander and Commander of USFOR-A to 
focus on the strategic level, working with other components of the 
Afghan Government and the organizations of the international community.
    Question. What changes, if any, would you recommend to these 
command structures?
    Answer. Without having witnessed ISAF operations first hand, but 
having been briefed numerous times, my initial reaction is that this 
new structure is about right. All military structures undergo minor 
changes and modifications with time to correspond to unique 
characteristics of specific operations. I am sure this new structure 
will be no exception. Naturally, if confirmed, I will assess it 
personally.
    Question. In your view, should the three-star position of Deputy 
Commander, USFOR-A, also be dual-hatted within the NATO ISAF command?
    Answer. The dual-hatting of a U.S. commander as a NATO commander 
should be based on the inherent operational benefits of such an 
approach, the impact of unity of effort, and the resource implications 
associated with this command arrangement. At the same time, these 
benefits must exist for both the United States and its allied forces in 
the operation and in the NATO chain of command. In the end, a decision 
on amending the NATO chain of command in Afghanistan is both a military 
decision and a political decision, and requires approval by the NAC. 
This can be one of the issues we look at in the future--how successful 
the structure has been in its initial setup and whether we believe it 
would increase synergy to expand/dual-hat the role to include NATO ISAF 
Command. Assessing this will be primary order of business for me if 
confirmed.
    Question. As additional U.S. forces flow into southern Afghanistan, 
what adjustments, if any, should be made to the theater and regional 
command to take into account the larger U.S. presence?
    Answer. NATO has a system which takes into account the composition 
of ISAF's command structure based on national contributions to combat 
forces. As U.S. forces increase, so will its representation in the ISAF 
command structure. However, we should take into account the 
multinational nature of this operation and should be cautious not to 
create the impression of a unilateral command structure. The 
significant increase of U.S. forces in Afghanistan will have an impact 
on the tempo of operations and the number of concurrent operations in-
theater, along with the associated logistical and support aspects of 
the forces. I would not wish to pre-judge the situation on the ground 
or preempt the recommendations of tactical and operational commanders 
in the field--views and recommendations that may well be provided in 
the future from the tactical level to COMISAF to the strategic level. 
As SACEUR, I would seek the advice and recommendations of subordinate 
commanders and work with the Nations individually and collectively in 
the military committee and NAC to gain their support.
              building the afghan national security forces
    Question. The administration's new strategy calls for fully 
resourcing the growth of the ANA and the ANP to 134,000 and 82,000 
personnel, respectively, by 2011. Some observers, however, believe that 
the currently planned end strength levels for the ANA and the ANP will 
be insufficient over the long-run to provide security throughout 
Afghanistan.
    Do you believe that the realities on the ground in Afghanistan 
necessitate growing the Afghan National Security Forces beyond the 
currently-planned end strengths of 134,000 for the ANA and 82,000 for 
the ANP?
    Answer. The administration's new strategy does call for a rapid 
build-up of the ANA and the ANP to 134,000 and 82,000 personnel 
respectively over the next 2 years. U.S. and NATO support to these 
approved strengths should be in our current focus. However, the new 
strategy also allows for additional enlargements as circumstances 
warrant. As Afghan Forces mature, we can work with the Afghan 
Government and our Allies to re-evaluate these end strengths.
    Question. The Combined Security Transition Command Afghanistan 
(CSTC-A) has the mission to provide training, advice, and assistance to 
Afghan security forces.
    What is your assessment of CSTC-A?
    Answer. CSTC-A is a U.S.-led organization under the command of U.S. 
Forces--Afghanistan and subsequently U.S. Central Command. Therefore, I 
leave any judgment on improving their performance to those capable 
commanders. From all I can see thus far, I believe CSTC-A has been a 
critical part of the success achieved in Afghanistan in terms of both 
building a capable ANA and taking on the additional tasks of developing 
the ANP. Together the ANA and ANP contribute to current NATO-led and 
coalition-led operations. More importantly, they represent the future 
capacity of the Afghan Government to secure and protect its citizens 
from the threat posed by extremists without further international 
assistance.
    Question. If confirmed, what plans do you have, if any, to improve 
the effectiveness or efficiency of the Combined Security Transition 
Command Afghanistan?
    Answer. As CSTC-A is a U.S.-led program outside my remit as either 
SACEUR or EUCOM commander, I do not have specific plans for enhancing 
the effectiveness or efficiency of CSTC-A. However, I will work with 
great interest to see how NATO nations may wish to work more closely 
with CSTC-A in training the ANA and ANP. Heads of State and Government 
tasked NATO to develop proposals on a possible NATO Training Mission--
Afghanistan, similar to the current NATO effort in support of U.S.-led 
coalition training in Iraq. NATO military authorities are examining 
options on how to proceed on the basis of determining what would be 
NATO's added value. I believe NATO does have added value in the 
training of ANA and ANP, and I believe this is a very important new 
tasking for the Alliance to consider. I will be working closely with 
General Petraeus on this specific issue, which is crucial to the 
overall effort in Afghanistan.
    Question. Witnesses at committee hearings have cited a number of 
challenges impeding the acceleration of expanding the Afghan National 
Security Forces, including: 1) a lack of training or mentoring teams to 
embed with Afghan units; 2) a lack of equipment; and 3) developing 
leadership among officers and noncommissioned officers.
    What do you view as the greatest challenge to accelerating the 
growth of the Afghan National Security Forces?
    Answer. These are all major challenges impeding expansion. However, 
I share General Petraeus's opinion that the greatest challenge is the 
lack of training teams to embed with Afghan units. We currently have 54 
Operational Mentor and Liaison Teams (OMLTs) in place, which does not 
meet the current requirement of 66 OMLTs. By December 2010, it is 
estimated that we will have 70 OMLTs in place, but actually require 91. 
The expansion of the Afghan National Security Forces over the next 2 
years is directly tied to the number of partner nations we can get 
contributing to the fight. The sooner we can expand the Afghan National 
Security forces and build their capacity to secure Afghan territory, 
the sooner U.S. and allied forces can begin to withdraw. Additionally, 
the issues of illiteracy, lack of sufficient time to train effective 
leaders, and an operational tempo for the Afghan Army and Police all 
further impact the training and development of their military.
    Question. If confirmed, how would you recommend addressing this 
challenge?
    Answer. This is one area with opportunity for greater cooperation 
with our Allies and partners. If confirmed, I would work with the 
Allies and partners to find ways in which they can contribute to the 
NATO Mission in Afghanistan, such as rapidly filling the remaining 
training teams (OMLTS) and developing the institutional military 
training schools necessary for the continued professional development 
of the Afghan military. A number of allies and partners are willing to 
contribute additional military forces to operations in Afghanistan, but 
lack the capability to operate safely and effectively with coalition 
forces. I would work to build the capacity of these countries to enable 
them to deploy interoperable and effective forces to Afghanistan. In 
addition, Furthermore, with the establishment of the NATO Training 
Mission-Afghanistan (NTM-A), Allied Command Operations will have an 
opportunity to play a greater role in supporting the training of the 
Afghan police--an area in critical need of improvement. There are 
excellent law enforcement capabilities in Europe like the Caribinieri 
and the Gendarmerie that could deploy to train the Afghan National 
Police. I will continue to work with Chiefs of Defense and leaders of 
Allied nations to fully resource the ISAF mission. EUCOM has a robust 
security cooperation program, including exercises, high-level visits, 
State Partnership Program, and component activities that can be 
leveraged to influence and enable further participation in ISAF as 
well.
    Question. The European Union has launched the European Union Police 
Mission in Afghanistan (EUPOL) to contribute to establishing a 
sustainable and effective Afghan police force by providing mentoring, 
advising and training at the national, regional, and provincial levels.
    In your view, what should be the relationship between CSTC-A and 
EUPOL for building the Afghan National Police?
    Answer. Again, as CSTC-A is under the command of U.S. Forces-
Afghanistan and subsequently U.S. Central Command, I leave any judgment 
on its activities to those capable commanders. While both organizations 
are valuable contributors to ANP development, I cannot speak to the 
details of their relationship. In general terms, all organizations and 
national efforts need to be integrated where possible and coordinated 
to the greatest extent. This is an area I will pursue if confirmed.
    Question. What more should NATO and EUPOL do to improve the 
capabilities and effectiveness of the police?
    Answer. I understand great effort is being made to find synergy 
between all national and international actors. While EUPOL is 
responsible to the EU, it is the responsibility of the ISAF mission to 
foster and maintain a productive relationship with all major security 
and sector reform actors in Afghanistan in order to bring coherency to 
all efforts. NATO leaders acknowledge that development of the ANP is a 
critical element of security and stability in Afghanistan, but police 
training is not identified as a key military task in the Operational 
Plan for ISAF operations. Some NATO nations are conducting police 
training on a bilateral basis. The EUPOL Mission mentors and advises 
the Afghan Ministry of Interior, but with only 400 personnel they have 
limited ability to assist the regions and provinces. NATO military 
authorities are examining options on how to contribute further, 
possibly through a NATO Training Mission-Afghanistan.
                  nato training mission in afghanistan
    Question. At the NATO Summit in Strasbourg/Kehl in April, NATO 
Heads of State agreed to establish the NATO Training Mission in 
Afghanistan. However, there continues to be a shortfall in the number 
of Operational Liaison and Mentoring Teams (OMLTs) available to embed 
with Afghanistan units.
    What should be done to encourage NATO allies to provide more OMLTs? 
Are there steps that NATO or the United States should take to assist 
NATO members in generating more training teams?
    Answer. The United States should continue to work with Allies and 
partners to fully resource the ISAF mission, whether they provide 
OMLTs, forces, equipment, or funding. The United States should also be 
prepared to provide immediate assistance--be it training, equipment, or 
other forms of support--to partners and Allies that are willing to 
contribute OMLTs (and other forces) to Afghanistan. EUCOM will continue 
to leverage security cooperation activities to build partner capacity, 
enabling deployment of forces to ISAF. For example, through the State 
Partnership Program, EUCOM has arranged the augmentation of partner 
nation OMLTs with a limited number of National Guard personnel. This 
has proven to be a highly effective means of enabling Allies and 
partners to deploy additional OMLTs to Afghanistan. By expanding upon 
existing capacity-building programs and pursuing new and more agile 
ways of recruiting, training and equipping partners, we will enhance 
the contributions of all partner nations in Afghanistan.
                            counternarcotics
    Question. What is your assessment of the current U.S. and NATO 
strategies for combating the production and trafficking of illegal 
narcotics in Afghanistan? What changes, if any, would you make in those 
strategies?
    Answer. Clearly the illicit drug trade is a critical issue that 
must be addressed in order to reach our objectives in Afghanistan. This 
is a complex issue that requires significant resourcing and there is no 
singular solution. From what I have learned so far, the Afghan 
authorities are working closely with international partners to execute 
the Afghan National Drug Control Strategy. This five pillar approach 
includes efforts in institution building, judicial reform, law 
enforcement, alternative livelihoods, and demand reduction. My 
impression is that recent efforts to disrupt the flow of funds from the 
drug trade to insurgents, including NATO's expanded authority, will be 
beneficial. I am hopeful that my experiences in dealing with counter-
narcotic issues in the SOUTHCOM region may be helpful in allowing me to 
work with partners and develop new ideas and approaches.
    Question. In December, Secretary Gates approved an expanded set of 
rules of engagement for U.S. forces combating narcotics in Afghanistan. 
NATO has reportedly approved a comparable expansion of the rules of 
engagement for NATO forces operating in Afghanistan.
    Please discuss your understanding of the reasons behind these 
changes in the counternarcotics rules of engagement.
    Answer. NATO Defense Ministers in October 2008 approved expanded 
authorities for ISAF to address both the illegal narcotics business and 
its facilitators because of the support rendered to the Taliban. Each 
year the narcotics trade provides $100 million directly to the 
insurgency, in addition to fueling corruption, undermining the rule of 
law, and impeding long-term economic growth of legitimate agriculture 
and business. Prior to the decision at the Defense Ministerials, ISAF 
assistance was primarily in-extremis support, while some nations 
provided additional support on a bilateral basis and through their 
Provincial Reconstruction Teams (PRTs). Recognizing the nexus between 
the narcotics trade and the insurgency, ISAF forces are now authorized 
to take direct and deliberate action against drug laboratories and 
traffickers providing support to the insurgents.
    Question. What is the impact of these changes in the rules of 
engagement to the best of your knowledge?
    Answer. Since the approval of enhanced ISAF counternarcotics (CN) 
authorities in early 2009, over 40 CN operations, the majority of which 
were Afghan-led, have been conducted. To date, several tons of drugs 
with an Afghan domestic value of over $4 million and over 50 tons of 
various precursor chemicals needed to process Opium have been seized 
and destroyed. Apart from these initial effects on the capabilities to 
produce and deal with drugs, CN operations in Afghanistan clearly 
underline the United States and NATO will and capability to effectively 
engage the narcotics network, which is fueling the insurgency.
    Question. In March 2009, Iran, Afghanistan, and Pakistan carried 
out a joint counternarcotics operation. The operation was part of a 
U.N. initiative, called the Rainbow Strategy, aimed at getting the 
three countries to carry out joint patrols and share intelligence on 
the members of the drug trade that process opium poppy into heroin and 
smuggle the drug to markets in Europe. The NATO Secretary General has 
discussed his desire to boost these joint efforts to counteract the 
illegal drug trade and trans-border organized crime from Afghan 
territory.
    What are your views on the possibility of NATO and U.S. 
opportunities to conduct joint efforts, including with Iran, to counter 
narcotics trafficking in Afghanistan?
    Answer. The illegal narcotics industry is a transnational threat 
that reaches far beyond the borders of Afghanistan. With more than 90 
percent of the world's opium originating in Afghanistan, countering the 
production and trafficking at the source is a key aspect of reducing 
the global impact of the drug trade. Most of the opium-producing areas 
of Afghanistan are along the Iranian and Pakistani borders, so joint 
efforts such as the Rainbow Strategy are encouraging and further 
similar efforts will be beneficial.
                   afghan national solidarity program
    Question. One program that contributes to enhancing development and 
empowering governance at the local level in Afghanistan is the National 
Solidarity Program (NSP). This program provides block grants directly 
to locally-elected Community Development Councils, which are 
responsible for identifying, planning and managing their own 
development projects. Funding for the NSP comes from the World Bank/
International Development Association, bilateral donors, and through 
the Afghanistan Reconstruction Trust Fund. According to its website, 
the NSP has provided more than $500 million in payments to 21,000 
Community Development Councils, which have financed more than 39,000 
subprojects to improve access to infrastructure, markets, and services.
    Are you familiar with the National Solidarity Program in 
Afghanistan?
    Answer. Yes, I am. The National Solidarity Program (NSP) is an 
effective tool enabling community councils to participate in decisions, 
planning, and management of local development projects. With funding 
from a variety of international sources, including the Afghan 
Reconstruction Trust Fund and bilateral national donations, combined 
with facilitating partners, the NSP has reached 34 districts and 359 
provinces. With tangible benefits to the population, including the most 
impoverished and vulnerable, NSP builds local governance capacity and 
ultimately extends the reach of the government.
    Question. Would you support expanding the National Solidarity 
Program as a means of building local governance and strengthening 
development?
    Answer. The NSP is one of many valuable efforts to support 
reconstruction, development, and governance throughout Afghanistan. In 
my view, it makes sense to build on this success and continue the 
program from what I understand about it at this point.
                          civilian casualties
    Question. What is your assessment of the impact of civilian 
casualties on the success of the coalition's counterinsurgency 
operations in Afghanistan?
    Answer. U.S. and allied forces always try their very best to avoid 
civilian casualties through prudent planning and conducting operations 
with extreme care and the highest concern for innocent lives. In 
contrast, the extremists we combat in Afghanistan actually target 
innocent civilians as a means of terrorizing and intimidating the 
Afghan people to achieve their aims. Civilian casualties are 
inconsistent with our aims since the Afghan people are our center of 
gravity. Civilian casualties, however, are in fact a tactic 
deliberately employed by the Taliban to achieve their aims. The Taliban 
intentionally operates among civilians as part of its strategy to 
undermine public trust of coalition forces, and has frequently used 
innocent civilians as human shields. We will take all actions to avoid 
civilian casualties in what is an extremely complex operating 
environment.
    Question. In your view, what additional steps, if any, need to be 
taken to address the issue of civilian casualties in Afghanistan?
    Answer. ISAF takes every precaution to avoid civilian casualties 
and makes adjustments to the existing tactical directive as the 
situation on the ground permits and necessitates. Ultimately, reducing 
or eliminating ISAF caused civilian casualties requires a fully trained 
and equipped Afghan National Security Force capable of conducting 
operations and ensuring the security of the population. This is an 
issue I will work upon with great diligence, as any counterinsurgency 
effort must place the security and confidence of the people squarely at 
the center of the equation.
                                 france
    Question. What is your assessment of the impact of France rejoining 
the integrated military structure?
    Answer. I believe that the full reintegration of France back into 
the integrated military structure of the Alliance is a very positive 
thing for NATO. France was a founding member of NATO and has 
contributed greatly throughout its history. France's full participation 
will only strengthen the Alliance and further build European defense 
capabilities.
    Question. Do you support giving France the position of SACT? Why or 
why not?
    Answer. As a major contributor to the Alliance's integrated 
military structure, France has been given a major command inside the 
Alliance--one of two NATO strategic commands. This decision, agreed to 
by Alliance members, reflects the contributions of France to the 
military structure in terms of manpower, resources, and budget as well 
as their contributions to NATO operations. I support the idea of 
Strategic Commander-Transformation as a French military officer and I 
understand the importance the French military accord to NATO's 
transformation policy and believe it will be a very good and effective 
arrangement.
                            nato enlargement
    Question. What are your views on whether NATO would benefit from 
further rounds of enlargement?
    Answer. This is a purely political issue, one that is the remit of 
the NATO nations. Heads of State and Government have reaffirmed that 
NATO's door remains open, as reflected in Article 10 of the Washington 
Treaty. My understanding of the North Atlantic Treaty is that any 
European nation that is willing and capable of undertaking the 
commitments and obligations of being a member state is welcome to join 
the alliance, should all members agree. This was articulated in the 
Alliance's Declaration on Alliance Security, approved at the 
Strassbourg-Kehl Summit in April of this year.
    Question. What criteria should the United States apply in 
evaluating candidates for future NATO enlargement?
    Answer. NATO considers and accepts new members in accordance with 
the Washington Treaty, the Alliance's 1995 Study on NATO Enlargement, 
and the NATO Membership Action Plan. With careful consideration, they 
developed over 30 separate political, economic, defense, military, 
financial, security, and legal criteria, which each NATO aspirant is 
expected to meet. The United States, as a NATO member, uses these same 
criteria to evaluate candidates. The successful integration of new 
members and their contributions to the Alliance demonstrates this 
process is working. In the end, new NATO members must be contributors 
to security--not consumers of security--as well as meet all the 
criteria as outlined above that provides for a country to enter the 
Alliance.
    Question. In your view, is there a limit to how far NATO can be 
enlarged and still be an effective military organization capable of 
making decisions and acting in a timely fashion?
    Answer. Expansion of the Alliance is a result of deliberate action 
taken by each member's government, which follows a collective decision 
of the Heads of State and Government to accept new members. NATO 
maintains an open door policy according to all of the documentation and 
study I have undertaken thus far; in particular, Article 10 of the 
Washington Treaty states clearly that NATO membership is open to all 
European nations. Democratic reform, defense reform, and 
interoperability all play a key role in a country's eligibility to be a 
member.
                                georgia
    Question. In your view, how should the United States and NATO 
proceed on the issue of NATO membership for Georgia?
    Answer. NATO has clearly stated that Georgia and the Ukraine will 
become NATO members, though the timing and path have not been 
determined. Georgia is currently in a process of Intensified Dialogue 
with NATO, and continues to participate in PfP activities and supports 
NATO military operations. Based on the political decisions in the NAC, 
the NATO military will have a supporting role in advancing defense 
reforms in Georgia and developing interoperability. EUCOM, as guided by 
U.S. Government policy, will work in concert with NATO Allies, to 
assist with the military and security related part of this reform. This 
is an important part of advancing Georgia's partnership with NATO.
    Question. Would you support further U.S. military assistance to 
Georgia to help it rebuild its military?
    Answer. I think it is reasonable for Georgia to possess a capable 
military for its own defense and to participate in coalition 
operations. I agree with current, prudent policy to focus our security 
cooperation with Georgia on fundamental intellectual issues like 
training, doctrine, and personnel management--the recent PfP exercise 
in Georgia was an example of this. This provides a measured and 
meaningful way to help a country that has helped us in Iraq and has 
voiced its willingness to assist the United States in Afghanistan.
    Question. In your view, is there a way to implement military 
assistance in a manner that does not provoke Russia and do you consider 
that to be advisable?
    Answer. As we discussed earlier when we were speaking about 
cooperation with Russia, the key to this will be to pursue common 
interests with Russia, while being transparent concerning our 
cooperation with Georgia. Prudent transparency concerning our 
assistance to Georgia would help Russia to see that ultimately we are 
merely trying to help catalyze regional stability and enable Georgia to 
do its part in working against many of the same transnational threats 
that worry both Russia and the United States The NATO-Russia Council, 
for example, is a good mechanism to provide this kind of transparency.
                                 russia
    Question. How do you see the NATO-Russia relationship evolving in 
the future?
    Answer. The conflict between Russia and Georgia last year led NATO 
to temporarily suspend the NATO-Russia council but has since been 
reinstated. Decisions about NATO-Russia relations, and subsequent 
military engagements, are made at the political level. However, I 
believe that the NATO-Russia relationship will be a high priority for 
the Alliance at both the political and military levels. NATO and Russia 
have numerous arrangements in place to discuss a broad security agenda, 
enhance confidence and mutual security, as well as build the capability 
for joint military operations. Since the end of the Cold War, the 
relationship has been marked with successes like the joint operations 
in Stabilization Force (SFOR), Kosovo Force (KFOR), and Operation 
Active Endeavor, and political differences such as those over Kosovo, 
Georgia, Conventional Armed Forces in Europe (CFE) Treaty, and Missile 
Defense. The relationship will continue to evolve at a pace determined 
by the success in breaching these differences and forging common 
perspectives and ultimately common approaches to security. I do believe 
that both NATO and Russia believe that the relationships with one 
another are vital, and see utility in the restarting of the 
relationship to address common concerns.
    Question. What steps, if any, should NATO take to help mitigate 
Russian concerns about further enlargements of NATO?
    Answer. It is expected that Russia will continue to voice concerns 
about further enlargement of NATO. NATO's leaders have made clear they 
desire a constructive partnership with Russia. NATO does not see 
enlargement as a choice between good relations or poor relations with 
Russia. NATO enlargement is not a zero-sum security equation, 
accomplished at the expense of Russia's or other countries' security. 
It is designed to support the expansion of the community of democracies 
and market economies, and strengthen regional security. However, the 
Russian government has a different view. NATO clearly wants to use the 
full range of cooperation and partnership under the NATO-Russia 
framework to build a constructive relationship with Russia, and use 
this very same framework to address the issues where NATO and Russia 
have different perceptions.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. The United States and Russia share many areas of common 
interest. We have ample opportunity to engage with the Russians on 
strategic arms reduction and arms control, military-to-military 
engagement, energy security, humanitarian assistance, counterterrorism, 
counterpiracy, counterproliferation, and counternarcotics. 
Interoperability is a fundamental requirement for successful 
operations, and the U.S./NATO and Russia should be prepared for 
missions our political leaders may task us to conduct jointly or within 
the same framework of an action by the international community. NATO-
Russia military activities have evolved since the Rome Summit and have 
incrementally increased in terms of the number and complexity of 
events. These events include exercises, seminars, academic exchanges, 
and technical conferences. These activities will play an important part 
in developing common approaches with Russia as well as the trust and 
confidence in these approaches to addressing a wide variety of risks 
and threats together.
    Furthermore, if confirmed as EUCOM Commander, I envision EUCOM's 
objectives for engaging Russia to be two-fold. First, we want to ensure 
compliance with national policy in anything we plan to do with respect 
to military-to-military engagement with Russia. The EUCOM staff has 
already taken steps in developing a plan intended to re-invigorate the 
military-to-military programs, albeit at a cautious and measured pace. 
Second, and probably more important, we want to address those areas of 
mutual understanding that support the interests of both the United 
States and Russia.
                    european missile defense options
    Question. The Obama administration is currently reviewing the 
previously proposed deployment of missile defenses in the Czech 
Republic and Poland, and is also considering a variety of options and 
possible alternatives to that proposed deployment, to include using the 
Standard Missile-3 (SM-3) interceptor either on Aegis BMD ships or on 
land. One consideration is that the proposed deployment in Poland and 
the Czech Republic, which neither nation has yet ratified, would not 
provide coverage of Southeastern portions of NATO Europe, some of which 
are already within range of Iranian missiles. Such incomplete coverage 
would be inconsistent with the central NATO principle of the 
indivisibility of security of all NATO members. Another consideration 
is the desire to have cost-effective and operationally effective 
missile defense systems.
    Do you agree that it is in our security interests to explore the 
full range of options and alternatives for possible future missile 
defense capabilities in Europe that would meet the security interests 
of NATO and our other allies and partners in the region?
    Answer. Yes, based on what I know at this time and without the 
benefit of actually discussing this with allies, I do agree. Rogue 
states in the Middle East and Southwest Asia possess a current 
ballistic missile capability that threatens a major portion of Europe. 
Iran is aggressively expanding the range and sophistication of its 
ballistic missiles and is pursuing nuclear capabilities that 
dramatically expand the threat to the entire European region. The 
deployment of ballistic missile defense assets in Europe would make a 
significant contribution to the protection of the United States and 
Europe from a Middle Eastern ballistic missile threat. Ballistic 
missile defense must remain a priority so that we are postured to 
counter threats to the United States, deployed forces and allies. 
Ballistic missile defense is directly linked to the other theater 
priorities such as deterring/defeating the use of missiles and WMD as a 
means of terrorism, defending against cruise missiles, and protecting 
peacekeeping forces from these threats.
    United States ballistic missile defense assets are dedicated not 
only to defense of the U.S. Homeland, but also to the defense of 
deployed forces and allies from the growing ballistic threat from rogue 
states. Sea-based (Aegis with SM-3) and transportable land-based assets 
(THAAD and Patriot) are integral components of a comprehensive 
ballistic missile defense system, but cannot defeat the entire range of 
threats by themselves. Sophisticated sensors are required for early 
acquisition and target discrimination and ground based interceptors are 
needed to defeat longer range missiles. In addition, The United States 
is working towards synergistically integrating its ballistic missile 
defense capabilities with current and emerging NATO missile defense 
capabilities and concepts. We need multi-layered missile defense 
capabilities stationed and operational in the region before a threat 
fully emerges to ensure our common European allies and partners' 
security.
                missile defense cooperation with russia
    Question. Secretary of Defense Gates has stated his interest in 
pursuing cooperation with Russia on missile defense relative to 
potential future Iranian missile threats, including the possibility of 
Russia sharing radar data from its Gabala and Armavir radars. NATO 
communiques have repeatedly expressed support for missile defense 
cooperation between the United States and Russia.
    Do you agree that it is in our security interests to pursue missile 
defense cooperation with Russia relative to potential future Iranian 
missile threats?
    Answer. Yes, I do, based on my preliminary understanding of the 
situation. I believe Missile Defense is a potential area of cooperation 
with Russia that is well worth exploring.
    Question. Do you believe that such cooperation could help in our 
efforts to dissuade Iran from pursuing nuclear weapons and long-range 
ballistic missiles?
    Answer. Yes, I do believe the potential exists to achieve such an 
effect, although this of course is a diplomatic issue outside of my 
specific purview.
                          nato-russia council
    Question. The NATO-Russia Council (NRC) has served as an important 
venue for discussions and cooperation between NATO and Russia, 
including missile defense cooperation such as the Theater Missile 
Defense exercise program. Recent NATO communiques have expressed 
support for expanded cooperation through the NATO-Russia Council, 
including on missile defense.
    Do you believe the NATO-Russia Council has valuable potential as a 
forum for NATO-Russian cooperation, including cooperation on missile 
defense?
    Answer. Yes, I do. The NRC's role is to provide a forum for 
consultation, cooperation, and consensus building between NATO and 
Russia. The NRC has facilitated discussion and cooperation on a broad 
range of issues over the past years. The NATO-Russia program of 
cooperation has included activities in the past in the sphere of 
theater missile defense cooperation. This area has been a long standing 
priority activity for both NATO and Russia. I believe that the NRC will 
continue to play an important role as a vehicle for discussion and 
cooperation in this sphere and in other areas of mutual interest.
    Question. Do you support continuation of the Theater Missile 
Defense exercise program within the NRC?
    Answer. NATO nations approve the NATO-Russia annual work plan, 
including all aspects of cooperation--civilian and military--between 
NATO and Russia. The Alliance is restarting the relationship with 
Russia after a lengthy suspension and the NATO nations will be making 
decisions on the priority areas of work and cooperation. I would not 
want to make a judgment on the role and place of a specific exercise 
program until the appropriate political authorities had determined the 
political scope, breadth, timing, and objectives for restarting the 
relationship. Clearly, military cooperation will have a role, but it 
will be a supporting role and one that serves the overall objectives of 
the U.S. national security policy and Alliance decisions.
                       patriot battery to poland
    Question. The United States and Poland have agreed that the United 
States will deploy a U.S. Patriot air and missile defense battery to 
Poland, although the terms and details remain to be worked out.
    Do you believe that it could be of benefit to NATO nations for the 
United States to deploy a Patriot battery to Poland, potentially on a 
rotating basis, as a NATO training battery, to improve the skills of 
NATO forces on the Patriot system?
    Answer. Yes, from what I currently understand and without the 
benefit of speaking to our allies, I do believe that deploying U.S. 
Patriot battery rotations to Poland for training and exercises could 
benefit NATO nations, assuming Poland continues with its planned future 
acquisition of a Patriot system.
                                 kosovo
    Question. What do you see as the major challenges in Kosovo, 
including in connection with the stand down of the Kosovo Protection 
Corps and the establishment of the Kosovo Security Force?
    Answer. The security situation in Kosovo remains calm and the 
progress and success in Kosovo has led NATO to decide to move to the 
next stage in the mission, Deterrent Presence, which includes a 
significant reduction of forces in place. The UN Interim Administration 
Mission in Kosovo (UNMIK) is drawing down, and the European Rule of Law 
Mission (EULEX) has now achieved full operating capability. Following 
its deactivation in January, the Kosovo Protection Corps remains on 
track for its official stand-down in June and the Kosovo Security Force 
is on schedule to reach Initial Operating Capability in September with 
an effective strength of around 1,500. An extensive training program is 
in place which includes the first 400 civilian recruits. However, 
shortages in the trust fund and donations will have a tangible impact 
on delivering a force equipped to carry out its tasks and we may have a 
trained force that remains incapable of fulfilling its role in Kosovo.
                          nato-european union
    Question. The NATO-European Union (EU) relationship is viewed by 
some as competitive and by others as complementary.
    How would you characterize the NATO-EU relationship today?
    Answer. This matter is largely a political issue outside the 
purview of the role of the SACEUR. My understanding is that NATO has an 
established arrangement with the EU for supporting EU military 
operations called ``Berlin Plus''. This has worked effectively and has 
improved EU-NATO coordination. The political level relationship also 
has improved, but probably not to the level of expectations by some 
countries. I understand this matter is seen as an important priority at 
the political level. If confirmed, I intend to explore areas for 
cooperation in the military sphere in a complementary way.
    Question. In your view, what should be NATO's position with regard 
to European efforts to strengthen the European Security and Defense 
Policy and build military capacity within the European Union?
    Answer. NATO's position will be decided at the political level. 
Without detailed information on existing capabilities, I am not 
prepared to take a position on development of EU military capacity. 
From a purely military perspective, however, every initiative 
strengthening or improving the military capabilities of our European 
allies should be welcomed; and if confirmed, this is an area in which I 
would seek to develop complementary activities.
    Question. What is your view of the future of NATO-EU cooperation in 
areas relating to security, defense, and crisis management? Should NATO 
do more to institutionalize cooperation between the two organizations?
    Answer. Future cooperation in these areas first depends on further 
development of the political relationship between NATO and the EU. It 
is my understanding that the ``Berlin Plus'' arrangement has been 
effective and I would prefer to Reserve judgment about future 
possibilities until I have the benefit of experience in the European 
theater and NATO. As I mentioned earlier, this is an interest area of 
mine and if confirmed I would pursue it in a collegial and 
complementary way.
   building partner capacity within the eucom area of responsibility
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207). Some have argued that security assistance has traditionally been 
a State Department responsibility and that these programs ought to be 
transferred from DOD to the Department of State.
    What should be our strategic objectives in building the capacities 
of partner nations?
    Answer. In the Guidance for Employment of the Force (GEF), the 
President has established theater strategic objectives for the EUCOM 
AOR. Building partner capacity is one of many means through which EUCOM 
achieves its Theater Objectives, while supporting US national 
objectives in the AOR. In general, capable, well-resourced Allies and 
Partners are critical enablers for all eight of EUCOM's Theater 
Objectives. Specifically, building partner capacity in the EUCOM AOR 
supports the following objectives:

        <bullet> NATO is capable and willing to conduct out-of-area 
        operations
        <bullet> Partner nations have the capacity to provide for their 
        own security and to sustain regional stability
        <bullet> Local crises are prevented from becoming regional 
        conflicts

    Do these objectives differ by region, e.g. do our objectives within 
the EUCOM AOR differ from those in the SOUTHCOM AOR?
    Answer. Yes, each Geographic Combatant Command has specific theater 
strategic objectives outlined in the GEF and its own theater strategy. 
The GEF objectives for the EUCOM AOR and EUCOM's theater strategy are 
specifically tailored to the opportunities and challenges found in 
Europe and Eurasia.
    Question. What is your understanding of the purpose of the section 
1206 global train and equip authority?
    Answer. The purpose of section 1206 is to provide combatant 
commanders the ability to respond to urgent and emergent threats or 
opportunities in their AORs by building the capacity of allies and 
partners to conduct counterterrorism operations or support stability 
operations in which U.S. military forces are participating. The law 
requires the Secretary of Defense to coordinate with the Secretary of 
State when executing global train and equip authority.
    Question. What is the relationship of the global train and equip 
authority to other security assistance authorities, such as DOD 
counternarcotics assistance and foreign military financing?
    Answer. Global train and equip authority complements other security 
assistance authorities. It enables combatant commanders to respond to 
urgent situations or opportunities in the near-term and render 
assistance to allies and partners that cannot be provided under other 
authorities. When appropriate, it can and should be used in combination 
with other security assistance authorities as part of a comprehensive 
approach to building partner capacity.
    Question. What should be done to ensure that the global train and 
equip authority does not duplicate the efforts of these other 
assistance programs?
    Answer. Avoiding duplication of effort with other assistance 
programs involves two key measures. The first is adherence to the 
criteria of the global train and equip authority established in the law 
and DOD policy. The second is robust internal and interagency 
coordination in the development of proposals for funding under the 
global train and equip authority.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (section 1207)?
    Answer. The purpose of section 1207 is to facilitate non-military, 
interagency support to reconstruction, stabilization and security 
activities in foreign countries. It is an important tool in EUCOM's 
efforts in the Balkans and the developing Eastern European countries.
                     interagency organization model
    Question. While you were the Commander of U.S. SOUTHCOM, the 
SOUTHCOM command structure was reorganized into an interagency model, 
where officials detailed from other agencies, such as the State 
Department, USAID, and the Federal Bureau of Investigations (FBI), are 
embedded as staff members within the command. U.S. Africa Command has 
adopted a similar organizational structure.
    What were the reasons behind the decision to alter the command 
structure of U.S. SOUTHCOM and the lessons learned after a little more 
than a year of operation under this model?
    Answer. As a Combatant Command, warfighting will always be the core 
competency at SOUTHCOM. However, SOUTHCOM reorganized to become a more 
interagency-oriented organization to address the specific challenges 
and opportunities in Latin America and the Caribbean.
    The Secretary of Defense authorized this reorganization in 
September 2007, and SOUTHCOM's efforts were also highlighted as one of 
the Top 25 DOD Transformation Priorities. A principal driver for the 
reorganization stemmed from my assessment of the regional security 
environment, based upon the underlying conditions that foster the 
security challenges of the SOUTHCOM area of focus, such as narco-
trafficking and other illicit-trafficking activities, and organized 
crime and gangs. Exacerbated by conditions of poverty, income 
inequality, and social exclusion, these security challenges are 
transnational in terms of impact and manifestation, and cross roles and 
mission lines of U.S. Government departments and agencies.
    I am a strong supporter of the ``3 D'' approach--State does 
Diplomacy, AID does Development, and DOD does Defense. I believe that 
our ability to work together, and for us in DOD to be helpful to our 
partners, is a key element in providing security for our country. Our 
approach at SOUTHCOM is designed to ensure we do that in the best and 
most efficient way.
    In this regard, the new SOUTHCOM organizational structure is 
designed to allow the command to collaborate proactively with the U.S. 
Government interagency community and with partner nations in the 
region--ultimately improving collective responses to regional and 
transnational security challenges.
    Question. What staffing support did you receive from other 
government agencies?
    Answer. SOUTHCOM has received a reasonable level of support from 
the interagency. There are 22 interagency personnel assigned to and 
working full-time at SOUTHCOM headquarters. Additionally, there are 13 
part-time liaison officers with full access and to the headquarters 
building and use of SOUTHCOM credentials for email, data sharing and 
web page browsing. Beyond these 35 personnel, there are some 40 
interagency personnel (in Miami; Washington, DC; and elsewhere) that 
have habitual relationships with SOUTHCOM via assignments by their home 
agencies (and many have either visited the headquarters or conducted 
brief 1-2 week orientation assignments).
    The Department of State continues to take an active role in 
SOUTHCOM's transformation. Ambassador Paul Trivelli has been assigned 
as the Civilian Deputy to the Commander and retains the role of 
Political-Military Advisor. USAID has also assigned a Senior 
Development Advisor to the command. The SOUTHCOM Security and 
Intelligence Directorate is led by a two-star U.S. Coast Guard Admiral.
    Question. Based on your experience with this new interagency 
command structure, if confirmed, what changes, if any, would you 
consider regarding the command structure for EUCOM? What metrics would 
you use to make a determination?
    Answer. Although some principles associated with the concept of 
functioning with an interagency approach have universal applicability 
and utility, every command and region of the world is unique. The 
changes my team and I made at SOUTHCOM to the command structure may not 
necessarily be the best approach for operations in the European 
theater. If confirmed, I would assess the security environment and 
challenges in that region and take a hard look at the current command 
structure at EUCOM to ensure that it is maximized for effectiveness and 
efficiency. At this point, and based on what I know now, I do not 
anticipate undertaking significant organizational changes at EUCOM.
                          nato transformation
    Question. What is your assessment of the role of Allied Command 
Transformation in effecting positive change among NATO member nations?
    Answer. The role of SACT is to identify, facilitate and advocate 
the continuous improvement of Alliance capabilities to maintain and 
enhance the military relevance and effectiveness of the Alliance. SACT 
leads the transformation of NATO's military structure, forces, 
capabilities, and doctrines to improve interoperability and the 
military effectiveness of NATO. SACEUR and SACT work in cooperation, 
not competition, to realize effective change across the alliance.
    Question. What will you do, if confirmed, to ensure that military 
capability and interoperability remain top priorities for NATO?
    Answer. Military capability and interoperability should remain top 
priorities for NATO. Without the necessary military capabilities, armed 
forces will not be able to provide an effective contribution to whole-
of-government efforts. From the Alliance's perspective, 
interoperability is the key to any multinational operation because in 
today's world, armed forces can no longer operate in an isolated 
manner, but have to share a very dynamic battle space and critical 
information. Ongoing operations in Afghanistan, Iraq, and Kosovo 
provide ``real world'' experience upon which to base our future plans. 
If confirmed, I would ensure that our ability to work together will be 
enhanced by these experiences.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. Like the Chairman of the Joint Chiefs of Staff and the 
Chief of Naval Operations, I support U.S. accession to the Convention 
on the Law of the Sea.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. As the CNO has testified, the Law of the Sea Convention 
provides a robust legal regime for global operations by U.S. Armed 
Forces. It codifies navigation and overflight rights and high seas 
freedoms that are necessary for mobility of our forces. It is 
completely in line with and supports the U.S. National Security 
Strategy. To date, 157 nations are signatories to the convention and I 
believe it is in our national security interests to do the same. Our 
current non-party status constrains our efforts to develop enduring 
maritime relationships with Partner Nations. It also inhibits our 
efforts to expand the Proliferation Security Initiative and elevates 
the level of risk for our Sailors as they undertake operations to 
preserve navigation rights and freedoms. We need to eliminate seams as 
much as possible when we operate in difficult circumstances in the 
maritime environment with like-minded partners--the Law of the Sea 
Convention would allow us to do that.
                     u.s. military basing in europe
    Question. Current DOD plans provide for the drawdown of U.S. Army 
forces in Europe to 32,000 U.S. soldiers by no later than 2013. 
However, General Craddock, the Commander, EUCOM, has recommended that 
the two brigades currently scheduled for redeployment back to the 
United States remain in Europe, keeping U.S. forces based there at a 
force of around 42,000.
    Do you support maintaining the current U.S. force presence in 
Europe beyond 2013? Why or why not?
    Answer. EUCOM and its forces have undergone significant 
transformation in recent years, transformation that was necessary in 
light of the changing geopolitical and security environment. That 
transformation continues today and will continue in the future as we 
continue to monitor and assess the security environment and U.S. 
requirements to ensure our safety, security, and protection of our 
national interests.
    The decisions that were made in the past regarding U.S. force 
presence in Europe were made based on an assessment of the geopolitical 
and security realities at the time. It would be prudent of me, if 
confirmed as the EUCOM Commander, to conduct a fresh assessment of the 
security environment and make recommendations to the Secretary of 
Defense on the best mix of U.S. forces in Europe now and in the future.
             quality of life programs for military families
    Question. The top three quality of life issues in the EUCOM AOR 
include obtaining quality living accommodations; gaining predictable 
access to health care to include family member dental support; and 
ensuring high-quality dependent education programs provided by the DOD 
Dependent Schools. Commanders in the EUCOM region have emphasized their 
support for and reliance on EUCOM resources to provide crucial morale 
programs, enhance retention, and foster esprit de corps.
    What do you see as the most significant long-term challenges for 
EUCOM in preserving and enhancing the quality of life for assigned 
personnel while force redeployments to the United States proceed?
    Answer. We are demanding a great deal from our force today and must 
remain focused on our warriors and their families. As we adjust our 
basing posture in Europe to become more operationally effective, we 
must also take the opportunity to address and enhance our Quality of 
Life posture as well. If confirmed, I will support existing EUCOM 
programs and processes that leverage our partnership with supporting 
agencies and Service components to build effective quality of life 
programs for our military families, and continue to focus on improving 
support to sustain our military personnel and their families. EUCOM 
servicemembers and their families (some facing their second or third 
deployments) deserve a quality of life commensurate to the Nation they 
serve. If confirmed, quality of life programs is one of the first 
topics I will discuss with the component commanders.
    Question. If confirmed, what steps would you take to ensure the 
adequacy of support services for military families during the 
transition to ensure that vital support mechanisms, such as DOD 
schools, morale, welfare and recreation services, family housing, and 
commissary and exchange facilities continue to serve military 
personnel?
    Answer. Every year EUCOM hosts a DOD renown Quality of Life 
conference to discuss Quality of Life requirements and shortfalls with 
military members of all ranks and their families. If confirmed, I will 
continue the practice of listening directly to the men and women of the 
command on what we are doing right and where we need to improve. I 
would continue to work closely with our Quality of Life Partners to 
focus resources where needed. For example, I am aware that EUCOM has 
worked extensively with DODEA to ensure that our military families' 
dependents are receiving a quality education, and to substantially 
improve school investment to restore our aging school infrastructure. 
It is essential we retain and sustain this level of effort in the 
coming years. The EUCOM team, comprised of Service component and HQ 
EUCOM policy and technical experts, will continue to partner to ensure 
full support for our warriors and their families.
            sexual assault prevention and response in eucom
    Question. Numerous cases of sexual misconduct involving military 
personnel have been reported over the last several years. Many victims 
and their advocates contend that they were victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
investigations and emotional support. Assertions have been made that 
their Command failed to respond appropriately by providing basic 
services, including medical attention and timely disposition of their 
charges.
    What is your understanding of the resources and programs in place 
in EUCOM to offer victims of sexual assault the medical, psychological, 
investigative, and legal help that they need?
    Answer. I am not aware of any shortfalls or deficiencies in command 
leadership, personnel, or training to prevent or respond to sexual 
assault in the EUCOM AOR. I will certainly look at the totality of 
these programs as a significant command responsibility.
    I understand the entire EUCOM AOR has robust resources and programs 
in place to offer victims of sexual assault the medical, psychological, 
investigative, and legal help required. If confirmed, I will work with 
Service component commanders to ensure they continue to have the 
appropriate resources and support to manage sexual assault prevention 
and response training programs. In addition, I will ensure every 
measure is in place to support victims.
    Question. What is your view of steps the command has taken to 
prevent sexual assaults in EUCOM?
    Answer. From the briefings I have received, I believe that EUCOM 
works directly with Service components and their leadership in building 
robust training programs to prevent sexual assault. All military and 
civilian members across the command have mandatory training 
requirements on an annual basis focused on prevention. Education has 
proven to be critical in preventing sexual assault, therefore EUCOM 
will continue to educate all of our military and civilian members 
annually.
    Question. What is your view of the adequacy of the training and 
resources in EUCOM to investigate and respond to allegations of sexual 
assault?
    Answer. Across the EUCOM AOR, I am told there are adequate training 
and resources in order to investigate and respond to allegations of 
sexual assault. If confirmed, I will work with the component commanders 
to ensure we continue to emphasize the importance of training and 
resources to investigate and respond to allegations of sexual assault.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. I am not aware of any problems with current sexual assault 
policies and procedures.
    Question. What problems, if any, are you aware of regarding the 
manner in which the confidential reporting procedures have been put 
into effect?
    Answer. I am not aware of any problems in this regard.
        mental health of servicemembers and stress on the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care to deal with this increased stress. The 
Chairman of the Joint Chiefs of Staff recently said that the shooting 
of five servicemembers at a stress control clinic by a troubled Army 
sergeant in Iraq speaks to ``the need . . . to redouble our efforts'' 
and ``the issue of multiple deployments'' and increasing dwell time 
``to try to improve to relieve that stress.'' This tragic incident, as 
well as increasing suicide rates in every Service, are clear reminders 
that servicemembers, particularly those who have been deployed multiple 
times, are under tremendous stress and need access to mental health 
care.
    In your view, are there sufficient mental health assets in EUCOM to 
address the mental health needs of the military personnel and their 
families?
    Answer. I understand there is a shortfall in health care 
professionals to assist military personnel and their families. However, 
this shortfall is being addressed in the fiscal year 2010 budget under 
the Warrior and Family Mental and Behavioral Health Support Program. 
EUCOM has requested $12.5 million in fiscal year 2010 for additional 
mental health care professionals to evaluate and counsel military and 
family members.
    Question. If confirmed, what actions will you take to address the 
mental health needs of military personnel and their families in EUCOM?
    Answer. Following budgeting actions, I would ensure all mental 
health professionals are hired in an expeditious manner.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. EUCOM and 
SACEUR?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                       basing of forces in europe
    1. Senator McCain. Admiral Stavridis, the Department of the Army 
announced today the cancellation of plans to build three Brigade Combat 
Teams (BCTs) at Fort Bliss, TX; Fort Stewart, GA; and Fort Carson, CO, 
as well as announcing that White Sands Missile Range, NM, will no 
longer receive a BCT from Europe in fiscal year 2013 as originally 
planned. This is the latest decision in a 5-year process by the 
Department of Defense (DOD) to realign the military's global force 
posture in order to respond to emerging threats and missions. In your 
opinion, how many Army BCTs should be stationed in Europe?
    Admiral Stavridis. From what I have seen so far, the Army 
cancellation of plans to build three BCTs is not directly tied to the 
delay in a BCT moving from Europe to New Mexico. I am aware of a 
proposal within the Department to review the earlier decision to move 
two BCTs from Europe to the continental United States (CONUS), in light 
of the realization that the strategic landscape has changed between the 
time of the original decision to return those two BCTs to CONUS and 
present day. However, I also understand that the ongoing Quadrennial 
Defense Review (QDR) has a focus group looking specifically at Ground 
Forces in Europe as a directed issue. The results of this study will 
validate what is the correct number of BCTs to station in Europe in 
order to work within the resource constraints of the Department while 
facilitating an acceptable amount of strategic risk.
    Some of the decisions that were made in the past regarding U.S. 
force presence in Europe and have yet to be completely realized were 
made based on an assessment of the geopolitical and security realities 
at the time. Should I be confirmed as the European Command (EUCOM) 
Commander, I will look forward to working with the Secretary of Defense 
on the best mix of U.S. forces in Europe now and in the future.

    2. Senator McCain. Admiral Stavridis, what is the military 
rationale for this number?
    Admiral Stavridis. As I stated in my response to Question #1, 
should I be confirmed as the EUCOM Commander, I will look forward to 
working with the Secretary of Defense on the best mix of U.S. forces in 
Europe now and in the future.
    However, the current rationale to review EUCOM ground force 
requirements is predicated on the projected security environment unique 
to the EUCOM AOR. The demand signal is to have a force in Europe 
capable of deterring, dissuading, and engaging adversaries from a 
position of U.S. strength in Europe. This forward presence assures our 
allies and sustains the U.S. leadership in NATO. It also maintains 
strong relationships with key alliance partners in Europe and Eurasia 
which is important to enabling global access and strategic reach. 
Moreover, forward stationed U.S. forces fulfill an expeditionary 
mission just as CONUS based forces do as part of the general global 
force management pool. However, their persistent forward presence in 
Europe affords them an inherent capability to conduct theater security 
cooperation in the margins of their Global Force Management (GFM) 
rotations, thereby increasing the capability of European partner 
nations to export security from Europe for missions in ISAF and Iraq.
    If confirmed, I plan to coordinate with the ongoing efforts of the 
QDR to adequately assess the right defense posture to maintain in 
Europe, particularly with respect to ground forces, in order to ensure 
that EUCOM has the forces it needs to meet mission requirements.

    3. Senator McCain. Admiral Stavridis, do you agree with the current 
DOD plan to relocate two BCTs in 2012 and 2013 from Europe to locations 
in the United States?
    Admiral Stavridis. I am aware of a proposal within the Department 
to review the earlier decision to move two BCTs from Europe to CONUS, 
in view of the opinion that the strategic landscape has changed between 
the time the original BCT decision was made and today. However, I also 
understand that the ongoing QDR has a focus group looking specifically 
at Ground Forces in Europe as a directed issue. The results of this 
study will validate the correct number of BCTs to station in Europe in 
order to work within the resource constraints of the Department while 
facilitating an acceptable amount of strategic risk.
    If confirmed, I plan to continue to work with the Department of the 
Army, the Joint Staff, and the Office of the Secretary of Defense 
efforts on the directed issue for Ground Forces in Europe as part of 
the ongoing QDR.

    4. Senator McCain. Admiral Stavridis, do you concur with the recent 
decision by the Air Force to remove tactical fighters from Europe?
    Admiral Stavridis. I support the Defense Department's plan to 
sustain U.S. air superiority through the program as articulated in the 
Secretary's Defense Budget recommendation announcement. This plan 
includes a retirement of tactical aircraft from among the oldest in the 
U.S. Air Force inventory, as well as significant investment in a fifth 
generation tactical fighter capability.
    From what I have seen so far, I do not believe the fighter 
reductions have been ultimately decided to the particulars of how many 
should be stationed at each location. If confirmed, I intend to fully 
coordinate any fighter modernization program with the U.S. Air Forces 
Europe component, as I believe it is important to find the right 
balance between sustainment of current capability and delivery of 
future systems.

    5. Senator McCain. Admiral Stavridis, in your opinion, what major 
military units and at what locations in Europe would you need to 
successfully carry out the missions of EUCOM?
    Admiral Stavridis. I believe military units in Europe need to be of 
sufficient capacity and capability to conduct missions across the 
spectrum of military operations: from `Phase 0' engagement and security 
cooperation activities to major combat operations. Military forces in 
Europe provide a critical layer to the strategic depth and defense of 
the homeland forward, and remain available to the DOD global force 
management pool for out-of-area operations. These military units need 
to remain on the leading edge of technological capability in order to 
effectively lead our partners and allies. Our locations in Europe 
should continue to support not only these forward assigned forces but 
should reinforce our critical partnerships with European nations 
committed to the global security effort. These locations are visible 
demonstrations of U.S. commitment to our host nations and enable the 
global access and strategic reach the United States requires in order 
to support other geographic regions from the position of stability and 
strength in Europe. Additionally important are the support units and 
facilities required to provide high quality of life for European 
soldiers, sailors, airmen, and marines.

    6. Senator McCain. Admiral Stavridis, concerning basing of forces 
in Europe, United States Army Forces in Europe is planning to spend 
over $320 million to relocate its headquarters from Heidelburg, 
Germany, to Weisbaden, Germany. If confirmed, will you take a look at 
this plan to ensure it is in the best interest of your forces in Europe 
and the U.S. taxpayers? Please report back to this committee whether, 
in your professional opinion, this is a wise and prudent investment.
    Admiral Stavridis. I am aware that the ongoing QDR has a focus 
group looking specifically at Ground Forces in Europe as a directed 
issue and that options regarding the Wiesbaden consolidation are being 
examined. The results of the QDR study on this issue will validate the 
way ahead in light of operational requirements and considering the 
fiscal constraints the Department faces regarding the basing of our 
forces in Europe.
    If confirmed, I will ensure we adequately steward our Nation's 
resources while improving efficiencies in our organizational construct. 
I will also report back to the committee following the completion of 
the QDR study.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                         russian transformation
    7. Senator Collins. Admiral Stavridis, despite a recession and 
massive cuts throughout his government, Russian President Dmitri 
Medvedev has vowed to increase defense spending by nearly 26 percent to 
about $37 billion, and to transform Russia's Soviet-era defense 
industry into a modern technological power. Media reports indicate 
Medvedev intends to cut Russia's officer corps from 355,000 to 150,000, 
and dismiss more than 200 generals, 15,000 colonels, and 70,000 majors. 
How will Russia's transformation factor into the upcoming QDR?
    Admiral Stavridis. Regardless of media reports of Russian 
transformation, the fact of the matter is that the European and 
Eurasian security environment is in complicated transition--coping with 
anxiety associated with the perception of unpreparedness to address 
21st century challenges, coupled with unresolved 20th century security 
problems, and a global economy suffering the worst crisis in almost 100 
years. The August 2008 Russia-Georgia conflict drew into question not 
only the vision of a post-Cold War Europe, but the fundamental post-
Cold War approach to security. Russia is an international prestige-
seeking state focused on economic growth. It wants to solidify its 
economic progress and strives to be perceived as a modern great power. 
Our relationship, and those of our allies and partners, with Russia is 
a significant security determinant on the continent. Prudent policy 
dictates that we conduct a strategic review of those relationships and 
our role within them, within the NATO Alliance, and on the continent.
    If confirmed, I plan to coordinate with ongoing efforts of the QDR 
to ensure the Europe and Eurasia security environment is sufficiently 
addressed and that EUCOM is properly positioned in that environment.
                                 ______
                                 
    [The nomination reference of ADM James G. Stavridis, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 12, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    ADM James G. Stavridis, 0000.
                                 ______
                                 
    [The biographical sketch of ADM James G. Stavridis, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                ------                                

               Resume of ADM James George Stavridis, USN


15 Feb 1955                                 Born in West Palm Beach, FL
01 Jun 1976                                 Ensign
02 Jun 1978                                 Lieutenant (junior grade)
01 Jul 1980                                 Lieutenant
01 Oct 1984                                 Lieutenant Commander
01 Nov 1990                                 Commander
01 Jun 1997                                 Captain
08 Jan 2001                                 Designated Rear Admiral
                                             (lower half) while serving
                                             in billets commensurate
                                             with that grade
01 Mar 2002                                 Rear Admiral (lower half)
01 Jan 2005                                 Rear Admiral
01 Sep 2004                                 Vice Admiral
19 Oct 2006                                 Admiral, Service continuous
                                             to date
 


Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
U.S. Naval Academy (Instructor).  June 1976.........  Aug. 1976
Naval Amphibious Base, Coronado,  Aug. 1976.........  May 1977
 San Diego, CA (DUINS).
Service School Command, Naval     May 1977..........  June 1977
 Training Center, Great Lakes,
 IL (DUINS).
USS Hewitt (DD 966) (Anti-        July 1977           Apr. 1979
 Submarine Warfare Officer).
Surface Warfare Officers School   Apr. 1979.........  Aug. 1979
 Command Newport, RI (DUINS).
USS Forrestal (CV 59)             Aug. 1979.........  Mar. 1981
 (Electrical Officer).
Office of the CNO (Strategic      Mar. 1981.........  Aug. 1981
 Concepts Group) (OP-603).
Tufts University (Student)......  Aug. 1981.........  Oct. 1983
Surface Warfare Officers School   Oct. 1983.........  May 1984
 Command Newport, RI (DUINS).
Combat Systems Engineering        May 1984..........  Sep. 1984
 Development Site, Moorestown,
 NJ (DUINS).
USS Valley Forge (CG 50)          Oct. 1984.........  Aug. 1987
 (Operations Officer).
Office of the CNO (Assistant for  Sep. 1987.........  July 1989
 Long Range Requirements).
Surface Warfare Officers School   July 1989.........  Oct. 1989
 Command Newport, RI (DUINS).
XO, USS Antietam (CG 54)........  Oct. 1989.........  July 1991
National War College (Student)..  July 1991.........  July 1992
Office of the Secretary of the    July 1992.........  Mar. 1993
 Navy (Special Assistant and
 Speechwriter).
Ships Material Readiness Group,   Mar. 1993.........  June 1993
 Newport, RI (DUINS).
CO, USS Barry (DDG 52)..........  June 1993.........  Dec. 1995
Joint Staff (Branch Chief, Force  Dec. 1995.........  Nov. 1997
 Policy Branch) (J5).
Commander, Destroyer Squadron     Nov. 1997.........  Dec. 1998
 Two One.
Office of the Secretary of the    Jan. 1999.........  Mar. 2001
 Navy (Executive Assistant).
Office of the CNO (Deputy         Mar. 2001.........  Jan. 2002
 Director for Requirements
 Assessment, N81D/Director, CINC
 Liaison Division, N83).
Office of the CNO (Director,      Jan. 2002.........  Aug. 2002
 Naval Operations Group).
Commander, Cruiser Destroyer      Aug. 2002.........  July 2004
 Group 12.
Office of the Secretary of        July 2004.........  Oct. 2006
 Defense (Senior Military
 Assistant to the Secretary of
 Defense).
Commander, U.S. Southern Command  Oct. 2006.........  To date
------------------------------------------------------------------------


Medals and awards:
    Defense Superior Service Medal
    Legion of Merit with four Gold Stars
    Meritorious Service Medal with two Gold Stars
    Navy and Marine Corps Commendation Medal with three Gold Stars
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award with Bronze Oak Leaf Cluster
    Navy Unit Commendation
    Meritorious Unit Commendation
    Navy ``E'' Ribbon with ``E'' Device
    Navy Expeditionary Medal
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with two Bronze Stars
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Armed Forces Services Medal with two Bronze Stars
    Sea Service Deployment Ribbon with three Bronze Stars
    NATO Medal
    Kuwait Liberation Medal (Kingdom of Saudi Arabia)
    Kuwait Liberation (Kuwait)
    Expert Rifleman Medal
    Expert Pistol Shot Medal

Special qualifications:
    BS (English) U.S. Naval Academy, 1976
    Designated Surface Warfare Officer, 1978
    Ph.D. (Foreign Affairs) Tufts University, 1984
    Graduate of Naval War College, 1985
    Graduate of National War College, 1992
    Designated Joint Specialty Officer, 1999
    Capstone, 2001-2

Personal data:
    Wife:
      Laura Elizabeth Hall of Ann Arbor, Michigan.
    Children:
      Christina A. Stavridis (Daughter), Born: 20 August 1985.
      Julia E. Stavridis (Daughter), Born: 14 February 1991.

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Rank
------------------------------------------------------------------------
Joint Staff (Branch Chief, Force  Dec. 1995-Dec.      CDR/CAPT
 Policy Branch) (J5).              1997
Office of the Secretary of        July 2004-To date   VADM
 Defense (Senior Military
 Assistant to the Secretary of
 Defense).
Commander, U.S. Southern Command  Oct. 2006-to date   ADM
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by ADM James G. 
Stavridis, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James G. Stavridis.

    2. Position to which nominated:
    Commander, United States European Command and Supreme Allied 
Commander Europe.

    3. Date of nomination:
    May 12, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 15, 1955; West Palm Beach, FL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Laura Elizabeth Stavridis (maiden name: Hall).

    7. Names and ages of children:
    Christina, 23.
    Julia, 18.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Institute, Surface Navy Association, Council on Foreign 
Relations.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                James G. Stavridis.
    This 2nd day of April, 2009.

    [The nomination of ADM James G. Stavridis, USN, was 
reported to the Senate by Chairman Levin on June 9, 2009, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 10, 2009.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Douglas M. 
Fraser, USAF, by Chairman Levin prior to the hearing with 
answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not have any recommendations for modifications to the 
Goldwater-Nichols provisions. If confirmed and if I see a need for 
modifications, I will not hesitate to make appropriate recommendations.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Southern 
Command (SOUTHCOM), to the following:
    The Secretary of Defense.
    Answer. The Commander is responsible to the President and the 
Secretary of Defense for accomplishing the military missions assigned 
to him and exercising command authority over forces assigned to him by 
the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as 
delegated by the Secretary and exercises the duties of the Secretary in 
his absence. The Commander communicates regularly with the Deputy 
Secretary and provides the information and support the Deputy Secretary 
needs to accomplish his job.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Commander does not have a direct command relationship 
with the Under Secretary of Defense for Policy. The Commander routinely 
interacts with, exchanges information, and coordinates with the Under 
Secretary on strategic policy issues.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Commander does not have a direct command relationship 
with the Under Secretary of Defense for Intelligence. The Commander 
does interact with, exchange information, and coordinate with the Under 
Secretary as needed to set and meet intelligence requirements for the 
command's area of focus.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for International Security 
Affairs, but routinely exchanges information and coordinates on issues 
of mutual concern.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict and Interdependent Capabilities.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict. The Commander routinely exchanges information and 
coordinates on issues of mutual concern.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and America's Security Affairs.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for Homeland Defense and 
America's Security Affairs but routinely exchanges information and 
coordinates on homeland defense matters.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman serves as the principal military advisor to 
the President and the Secretary of Defense and is a key communication 
link between the combatant commanders and the President. The SOUTHCOM 
Commander keeps the Chairman apprised of significant events and issues 
in his area of focus to enable the Chairman to perform his critical 
role.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are responsible 
for organizing, training, and equipping forces in their departments for 
assignment to the combatant commanders. They are responsible for the 
administration and support of these forces. The commander does not have 
a direct command relationship with the Service Secretaries, but 
routinely exchanges information and coordinates on issues of mutual 
concern.
    Question. The Chief of Staff of the Army, Chief of Naval 
Operations, Commandant of the Marine Corps and Chief of Staff of the 
Air Force.
    Answer. The Service Chiefs are responsible for organizing, 
training, and equipping forces for assignment to the combatant 
commands. The Commander routinely discusses issues and concerns with 
the Service Chiefs and works closely with them to understand service 
capabilities, discuss combatant command requirements, and effectively 
employ service capabilities in conducting the U.S. SOUTHCOM mission.
    Question. The other combatant commanders, particularly U.S. 
Northern Command.
    Answer. The Commander, SOUTHCOM maintains a close relationship with 
the other combatant commanders, especially U.S. Northern Command 
(NORTHCOM), closely coordinating issues of mutual concern, maintaining 
frequent contact, and exchanging information. When directed or 
specified by the Secretary of Defense, the relationship between 
combatant commanders becomes formal for the planning and execution of 
specific operational plans.
    Question. U.S. Chiefs of Mission within the SOUTHCOM area of 
responsibility.
    Answer. The Commander does not have a formal relationship with the 
Chiefs of Mission. The respective U.S. Ambassador is responsible for 
directing and supervising all U.S. Government activity in the host 
nation, with the exception of those military activities under the 
combatant commander's direction. The Geographic Combatant Commander 
routinely discusses and coordinates issues and concerns of mutual 
interest with the Chief of Mission within the host nation. The 
combatant commanders direct and coordinate U.S. military activity 
throughout their areas of responsibility, negotiating force protection 
arrangements with Chiefs of Mission, as appropriate. If confirmed, I 
intend to maintain close coordination and contact with the Chiefs of 
Mission throughout the SOUTHCOM area of focus. In addition, I will 
continue to host annual subregional conferences with the Chiefs of 
Mission to exchange regional information and perspectives.
    Question. Director of National Drug Control Policy, Executive 
Office of the President.
    Answer. The Commander does not have a direct command relationship 
with the Director of the Office of National Drug Control Policy. The 
Commander interacts with, exchanges information, and coordinates with 
the Director as needed to set and meet counternarcotics requirements 
and policy for the command's area of focus.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, SOUTHCOM?
    Answer. The Commander, SOUTHCOM is responsible for directing the 
missions assigned by the President and the Secretary of Defense, to 
include conducting military operations, logistical support, and joint 
training of assigned military forces. The Commander, SOUTHCOM is 
responsible for conducting these operations within his assigned area of 
focus which includes 31 nations and 10 territories.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am honored the President nominated me to be the 
Commander, SOUTHCOM. Over the past 3\1/2\ decades, I have served in a 
variety of Air Force and joint assignments, in both operational and 
staff positions. If confirmed, these experiences have prepared me well 
to meet the challenges and opportunities of commanding SOUTHCOM.
    I commanded a fighter squadron in the Pacific, a combined air 
operations group in the United States, including periods of combat 
operations during Operation Southern Watch, a combined air wing 
supporting worldwide airlift and providing forces for combatant command 
operations, the Space Warfare Center, and simultaneously commanded four 
organizations in Alaska, including a binational NORAD region, a PACOM 
subunified command, a NORTHCOM joint task force, and a USAF numbered 
air force. My current position has given me the experience and insight 
of helping to direct the operation of a geographic combatant command. 
In addition to this experience, I served in various staff positions on 
the Headquarters, U.S. Air Force staff, the Office of the Secretary of 
Defense staff, the U.S. Pacific Command staff, and the Air Force Space 
Command staff. These jobs have enabled me to observe and participate in 
joint, international, and interagency strategy and policy development 
as well as have given me the opportunity to engage with international 
partners across the Asia Pacific, to include military engagement with 
representatives from Chile and Mexico.
    In addition to military experience, I lived in Bogota, Colombia, 
for 3 years and graduated from high school there. While I need to 
regain proficiency, I have a working level knowledge of Spanish. As a 
result of my time in Colombia, I have maintained a life-long interest 
in and affinity for Latin America and the Caribbean. I also visited 
Central America while assigned to 12th Air Force in the mid-1980s and 
visited Central and South America in early 2002 as part of a Capstone 
trip.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
SOUTHCOM?
    Answer. If confirmed, I will engage with key leaders and personnel 
within the executive and legislative branches of the U.S. Government to 
better understand United States policies and interests in the SOUTHCOM 
area of focus. I will engage with government and military leaders of 
the Nations throughout the region to understand their perspectives and 
concerns. I will engage with experts in academia, the media, and think 
tanks around the United States and in Latin America and the Caribbean 
to understand the complexities of the issues impacting the region. I 
will engage with the commanders of other U.S. combatant commands to 
better understand operational integration across combatant command 
seams. Finally, I will continue to study and enhance my proficiency in 
Spanish and familiarize myself with Portuguese.
                            major challenges
    Question. If confirmed as the Commander of SOUTHCOM, you will be 
responsible for all military operations in that region. These include 
operations supporting homeland defense and security, the Department's 
counternarcotics efforts in the source nations and transit zone, 
detainee and interrogation operations at Guantanamo Bay, security of 
the Panama Canal, and development of democratic values within the 
military organizations of the region. If confirmed, you will be 
pursuing these missions amidst an economic downturn and the threat of a 
pandemic, and at a time when the region appears to be moving away from 
democracy in some nations and growing increasingly unstable in other 
nations.
    In your view, what are the major challenges and problems you would 
confront if confirmed as the next Commander, SOUTHCOM?
    Answer. I do not foresee any imminent conventional military threat 
to the United States in the region. However, other security challenges 
are present, including narcoterrorism, illicit trafficking, crime, and 
natural disasters. In addition, transnational radical extremist 
organizations in the region are actively engaged with fundraising and 
logistics support for their parent organizations.
    Narcoterrorist networks are active throughout the region. These 
networks include domestic narco-terrorists, such as the FARC in 
Colombia and the Shining Path in Peru. These groups undermine 
democratic governments, terrorize populations, impede economic 
development, and hinder domestic and regional stability.
    Global illicit trafficking remains a significant transnational 
security threat in the region. Illicit trafficking undermines domestic 
and regional stability in much the same manner as narco-terrorism.
    Islamic radical terrorist networks are also active, primarily 
involved in fundraising and logistical support for parent organizations 
based in the Middle East, such as Hizballah and Hamas.
    Still another challenge to watch is the nexus between these two 
groups in which well resourced narco-traffickers coordinate their 
activities with terrorist networks and vice versa.
    Underlying the security challenges mentioned above, poverty, income 
inequality, and lack of opportunity drive social unrest and corruption, 
fostering many of the region's public security challenges. These 
conditions make societies vulnerable to the influence of illicit 
activity--such as drugs, crime, gangs, and illicit immigration. Such 
conditions are aggravated by the region's economic downturn.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed, I will work with the U.S. interagency and 
partner nations to enhance our mutual capability to address the 
region's security challenges. The challenges we face affect all the 
Nations in the region and require collaborative, interagency and 
international solutions. I will continue to evaluate, assess, and 
execute SOUTHCOM's comprehensive regional plan to address the illicit 
trafficking problem plaguing the region. I will continue to reach out 
to the militaries in the region, encourage regional engagement and 
train, exercise, and partner as appropriate, to address regional 
security concerns. In addition, I will continue to reach out to those 
militaries in countries that have been distancing themselves from the 
United States to encourage military engagement.
    Finally, if confirmed, I will maintain a command focus on the 
detention facility in Guantanamo Bay to ensure all laws, regulations, 
and policies are followed until the last detainee departs the facility 
and the detention facility is closed.
    Question. What actions would you propose to counter the growing 
threat to democracy in the region?
    Answer. I think the key to countering the threat to democracy in 
the region is continuing to improve the security, stability, and 
adherence to the rule of law by nations in the region. SOUTHCOM can 
improve security and stability in the region by continuing to build 
partner nation security capacity consistent with the command's Theater 
Security Cooperation program. Improving security and stability creates 
the conditions necessary for improving adherence to the rule of law, 
which in turn fosters and preserves democracy. SOUTHCOM is only a part 
of the solution, however, because effectively countering threats to 
democracy requires the United States to continue a whole-of-government 
approach. If I am confirmed, I will work closely with the other Federal 
agencies and our regional partners to support and encourage the 
continued growth of democracy in the region. In addition, I will 
constantly evaluate and assess the command's Theater Security 
Cooperation program, adjusting it as required, to support U.S. and 
regional efforts to support democracy. My intent, if confirmed, will be 
to continue the command's efforts to make SOUTHCOM an indispensable 
regional partner.
    Question. What is your assessment of the strengths and weaknesses 
of military-to-military exchange programs and contacts in the SOUTHCOM 
area of responsibility (AOR)?
    Answer. I think SOUTHCOM maintains a strong military-to-military 
exchange program. They use the full set of available tools to conduct 
their program, including a robust State Partnership program, an 
innovative Partnership of the America's maritime engagement operation, 
and continuing military exchanges, totaling 845 events in 2008. If 
confirmed, I will work hard to enhance and increase these important 
military-to-military programs.
                     interagency organization model
    Question. The SOUTHCOM structure was reorganized into an 
interagency model, where officials detailed from other agencies, such 
as the State Department, U.S. Agency for International Development 
(USAID), and the Federal Bureau of Investigations (FBI), are embedded 
as staff members within the command. U.S. Africa Command has adopted a 
similar organizational structure.
    Please discuss your views of this new command structure model.
    Answer. From my understanding, SOUTHCOM reorganized to become a 
more interagency-oriented command in order to better meet its mission. 
Many of the underlying challenges in the region fall under the lead of 
other U.S. agencies and the complexity of coordinating and working to 
address these challenges only reinforces the need for coordinated 
interagency solutions.
    As I understand it, this new organization enables SOUTHCOM to 
collaborate proactively with U.S. executive branch agencies and 
departments and with partner nations in the region--improving 
collective responses to regional and transnational security challenges. 
The new structure also created the position of Civilian Deputy to the 
Commander, who is a Senior Foreign Service Officer from the State 
Department and a former Chief of Mission from the area of focus.
    In my view, this new command structure assists SOUTHCOM in 
synchronizing its activities with ongoing whole-of-government 
approaches in the region, and ensures it continues to conduct military 
operations with an unbroken and capable military chain of command and 
authority.
    Question. Based on your understanding of this new interagency 
command structure, if confirmed, what changes, if any, would you 
consider making regarding the command structure and what metrics would 
you use to make a determination?
    Answer. If confirmed, I will examine the organization closely to 
understand its operation and assess its effectiveness. My study of 
SOUTHCOM indicates the command, through a directorate specifically 
designed to assess its processes and activities, regularly evaluates 
its effectiveness and makes changes as needed to improve its capability 
to direct its operations.
                        counternarcotics efforts
    Question. Each year the Department of Defense (DOD) spends several 
hundred million dollars to counter the flow of illegal drugs into the 
United States, yet the availability of drugs on the street has not been 
significantly reduced, and some countries continue to face internal 
security challenges in responding to this threat. Much of these funds 
are executed within the SOUTHCOM AOR, and some have questioned the 
effectiveness and focus of our counternarcotics programs.
    What is your assessment of the ongoing counternarcotics operations 
within the SOUTHCOM AOR?
    Answer. As I understand it, while many challenges remain, 
counternarcotics operations in the SOUTHCOM area of focus are providing 
a positive impact on the comprehensive U.S. Government program.
    If confirmed, what changes, if any, would you propose?
    Answer. If confirmed, I will regularly assess the situation and 
evaluate ways to improve SOUTHCOM's role in the program. Based on my 
initial impression, I will continue SOUTHCOM's work to strengthen its 
already strong coordination and communication with U.S. Federal 
agencies and with partner nations. I will continue to engage with our 
partner nations and help them improve their counternarcotics 
capabilities. I will continue to build on command successes to date, 
continue to enhance our national and international efforts to 
anticipate and adjust to changes in illicit drug activity, and continue 
to improve counternarcotics cooperation and focus across the region, as 
well as with other combatant commands.
    Question. How would you recommend that the success of the 
Department's counternarcotics programs be measured?
    Answer. No single DOD measure can effectively gauge the success of 
a counternarcotics program which encompasses diverse elements from 
across the U.S. and international governments. As the lead agency for 
counternarcotics detection and monitoring in the source and transit 
zones, the DOD concentrates on successful detection of illicit drug 
activity and, as appropriate, supports resultant endgame operations. 
Last year, for example, SOUTHCOM's Interagency Task Force stopped more 
than 228 metric tons of cocaine and helped facilitate the capture, by 
U.S. law enforcement or partner nation organizations, of 317 drug 
traffickers. In addition, the DOD trained and provided logistical 
support to partner nations' militaries and law enforcement agencies, 
substantially improving their counternarcotic capabilities. While such 
efforts are only part of a comprehensive program, they demonstrate the 
positive impact the DOD is making in regional counternarcotics efforts.
    Question. Do you believe that the current programs that the 
Department is pursuing are the most effective for the region, or should 
the Department's efforts focus elsewhere?
    Answer. DOD constantly evaluates its programs and seeks ways to 
improve results. DOD's focus is on detection and monitoring operations. 
Its programs complement other U.S. programs, such as the Department of 
State's eradication and economic development programs. All these 
programs must complement and support each other to work across the 
entire illicit narcotics enterprise--production, transportation, 
consumption, treatment, and education--to produce effective results. I 
think the current DOD programs are appropriately synchronized with 
other agency efforts, but if confirmed, I will continue to explore ways 
to improve coordination and increase DOD's efficiency and effectiveness 
working across interagency requirements.
    Question. Compared to other missions that you would be responsible 
for as Commander, SOUTHCOM, if confirmed, where would you rank 
counternarcotics in terms of its contribution to our national security 
and the ability of DOD to make a meaningful contribution?
    Answer. One of my top priorities, if confirmed, will be supporting 
the broad U.S. struggle against violent extremism. My understanding is 
that some of the drug trafficking networks in Latin America have 
extremist group affiliations, and at least a portion of drug 
trafficking profits may be transferred by extremist network members to 
their parent terrorist groups. Because of this, the counternarcotics 
mission and the struggle against violent extremism are intertwined. I 
think the Defense Department should continue to support U.S. and 
partner nation drug enforcement efforts, working to deny narco-
traffickers the capability to maintain terrorist group affiliations 
through their narcotics trade.
    Question. West Africa has emerged as a key player in the 
trafficking of drugs from Latin American to Europe. Latin American drug 
cartels are taking advantage of poor countries like Guinea Bissau that 
have weak central governments, as well as corrupt and inept law 
enforcement agencies, that are unable to control their coasts and 
ports.
    In your view, what is the most effective way for U.S. Africa 
Command and SOUTHCOM to collaborate along this seam between your 
respective Commands?
    Answer. From what I've studied, over the past year the Joint 
Interagency Task Force-South (JIATF-S) worked closely with U.S. Africa 
Command to share information and help them build an effective 
counternarcotics organization. Additionally, in an effort to directly 
improve the coordination between SOUTHCOM and U.S. Africa Command, the 
two commanders and staffs recently held staff talks that brought 
together all levels of both commands, from action officer through 
senior leadership, to discuss this issue along with several other 
topics. Staff counterparts across the commands work on a one-to-one 
basis on everything from actionable drug interdiction information to 
collaborative papers. If confirmed, I intend to continue this close 
collaboration and information sharing, and where it makes sense, 
coordinate activities between the two combatant commands.
    Question. There has been a surge in drug-related violence in Mexico 
over the past year, which has increased the risk of cross-border 
violence into the United States. Much of the drug supply comes into 
Mexico across its southern border. While Mexico is in the NORTHCOM AOR, 
the rest of Latin America is in the SOUTHCOM AOR. So the security 
situation in Mexico is an example of the need for a well-coordinated 
effort between NORTHCOM and SOUTHCOM.
    What is your vision of how SOUTHCOM and NORTHCOM could work 
together in a fully coordinated and seamless fashion with respect to 
Mexico and other security challenges?
    Answer. The drug-related violence in Mexico remains unsettling. As 
indicated, the flow of drugs starts in South America and passes through 
Central America. I'm told that SOUTHCOM and NORTHCOM collaborate 
regularly to deal with this and other security issues. For example, the 
two commands held a major coordination conference last year, use 
liaison officers for daily collaboration, have a Joint Operating Area 
through JIATF-S where they collaborate in real time on illicit 
trafficking interdiction, and share information on countries of mutual 
interest under the new Unified Command Plan. If confirmed, I will 
continue the close coordination between SOUTHCOM and NORTHCOM to 
address illicit trafficking and other security challenges.
    Question. The United States and Mexico announced in 2007, the start 
of a multiyear, bilateral security agreement called the Merida 
Initiative. This Initiative aims to combat drug trafficking and other 
criminal activity along the U.S.-Mexican border, as well as in Central 
America. The U.S.-Mexican border is viewed as especially important for 
U.S. counternarcotics efforts because Mexico is currently the primary 
point of entry for cocaine and other drug shipments smuggled into the 
United States.
    What is your understanding of the Merida Initiative as it relates 
to Central America and the role of SOUTHCOM?
    Answer. My understanding is that in addition to providing 
assistance to Mexico, Merida provides assistance to Central America, 
Haiti and the Dominican Republic. The Central America portion of the 
Merida Initiative is a comprehensive public security package that works 
to tackle insecurity in Central America by more effectively addressing 
criminal gangs, improving information sharing between countries in the 
region, modernizing and professionalizing the police forces, expanding 
maritime interdiction capabilities, and reforming the judicial sector 
in order to restore and strengthen confidence in those institutions by 
the citizens in the region. The SOUTHCOM's specific role in Merida is 
improving maritime security capacity with such things as improved 
radios and interceptor speed boats. If confirmed, I will continue to 
support these programs to help build the capacity of partner nations to 
improve regional security and counter illicit trafficking activities.
    U.S. assistance has focused mainly on four strategic pillars: (1) 
eradication of coca and opium poppy crops, (2) illegal drug 
interdiction, (3) alternative development to provide coca and opium 
poppy farmers other sources of income, and (4) institution-building to 
train security forces and to strengthen democratic governance capacity. 
Supporters of the program argue that U.S. assistance has been vital to 
building foreign government counternarcotics capacities. Critics often 
question the program's effectiveness to reduce the amount of cocaine 
and heroin entering the United States, because the Andean region still 
accounts for the production of virtually all of the world's cocaine and 
increasing amounts of high-quality heroin. Some also criticize the 
program for excessively emphasizing supply-side eradication and 
interdiction, especially in Colombia, without sufficient focus on 
economic development, institution building, and public and private 
sector reform.
    Question. What is your assessment of this issue and, if confirmed, 
where do you believe the funds dedicated to combating the narcotics 
trade in the SOUTHCOM AOR can most effectively be used?
    Answer. The counternarcotics effort requires a whole-of-government 
approach; no one pillar alone can accomplish the job. While SOUTHCOM 
through JIATF-S and its other components is responsible for 
counternarcotics detection and monitoring throughout its area of focus, 
other U.S. Government agencies have the lead on supply-side 
eradication, interdiction, economic development, institution building, 
and public and private sector reform. I think the United States should 
continue this multi-pronged approach and continue pursuing coordinated 
efforts.
    Question. If confirmed, how would you work with respective Chiefs 
of Mission to accomplish your objectives?
    Answer. If confirmed, I will communicate often and coordinate 
closely with the Chiefs of Mission to accomplish U.S. objectives in the 
counternarcotics effort.
  building partner capacity within the southcom area of responsibility
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207). Some have argued that security assistance has traditionally been 
a State Department responsibility and that these programs ought to be 
transferred from DOD to the Department of State.
    What should be our strategic objectives in building the capacities 
of partner nations?
    Answer. U.S. strategic objectives in building partner capacity are 
to increase the capacity of the armed forces in our partner nations to 
address the security challenges within their territories, increase 
their capability to help each other solve cooperative security 
challenges and promote security cooperation among all partner nations 
in the region.
    Question. Do these objectives differ by region, e.g., do our 
objectives within the PACOM AOR differ from those in the SOUTHCOM AOR?
    Answer. In my view, while the specific capacities desired for 
specific countries or subregions within each command's AOR may differ, 
the objectives of both programs are the same.
    Question. What is your understanding of the purpose of the section 
1206 global train and equip authority?
    Answer. I understand that section 1206 authority enables combatant 
commanders, in coordination with U.S. Ambassadors to host nations in 
which specific 1206 activities are proposed, to build partner nation 
capacity by rapidly training and equipping their armed forces to 
conduct counterterrorism or stability operations against urgent or 
emergent threats.
    Question. What is the relationship of the global train and equip 
authority to other security assistance authorities, such as DOD 
counternarcotics assistance and foreign military financing (FMF)?
    Answer. In my view, section 1206 authority is one of many tools 
available to combatant commanders to use in a whole-of-government 
approach to their region's security challenges. All these tools are 
used together to enhance regional security. The DOD counternarcotics 
assistance program builds partner nation capacity and coordinates 
regional counternarcotic activities to counter illicit drug 
trafficking. FMF helps build long-term relationships that provide 
access and cooperation in the region. Section 1206 builds operational 
capability in the armed forces of partner nations to enable them to 
conduct effective counter-terrorism operations within their borders and 
with other nations to counter emergent threats. In my view, SOUTHCOM 
uses its various authorities to coordinate multiple activities with 
other Federal interagency partners and Chiefs of Mission to build an 
effective whole-of-government approach to regional security challenges.
    Question. What should be done to ensure that the global train and 
equip authority does not duplicate the efforts of these other 
assistance programs?
    Answer. Host country funding and FMF plans are included when 
combatant commanders build a section 1206 proposal. These proposals are 
coordinated directly with each host nation U.S. Ambassador to 
deconflict the activities of various assistance programs. If confirmed, 
I will continue this close coordination between the Defense Department 
and the State Department to provide safeguards against duplicating 
efforts.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (section 1207)?
    Answer. I understand that section 1207 provides authority for the 
Defense Department to transfer to the State Department up to $100 
million per fiscal year in defense articles, services, training or 
other support for reconstruction, stabilization, and security 
activities in foreign countries.
          terrorism threat from caribbean and central america
    Question. In your view, what is the extent of the current threat of 
terrorist extremists from the Caribbean and Central America?
    Answer. Terrorist activity in the Caribbean and Central America is 
generally limited to fundraising and logistics. While terrorism 
emanating from the region is rare, the presence of individuals with 
operational terrorism experience is cause for concern. Such concern is 
further justified in light of the impending New York trial of 
individuals from Trinidad and Tobago and Guyana, who allegedly plotted 
to blow up gas pipelines into JFK Airport. If confirmed, I will keep 
SOUTHCOM vigilant to detect and defend against terrorist threats to the 
United States and our partners.
    Question. How would you broadly characterize the terrorism threat--
low, medium, or high?
    Answer. I understand that extremist organizations are active in 
Latin America and the Caribbean, primarily focused on fundraising and 
logistics support for parent organizations in the Middle East. However, 
as the alleged plot described in the answer above indicates, there are 
individuals in the region who are interested in doing harm to the 
United States. For that reason, I would characterize the threat as low 
to medium.
                                 haiti
    Question. The United Nations (U.N.) Security Council voted 
unanimously on October 14, 2008, to extend the U.N. peacekeeping 
mission in Haiti for 1 year. Haiti continues to experience turmoil and 
instability.
    How would you characterize the current military, economic, and 
political situation in Haiti?
    Answer. Haiti remains relatively calm, but security challenges 
continue to impact this fragile democracy. The 2008 hurricane season 
decimated Haiti with four consecutive tropical weather events. Recovery 
has been slow, and another such hurricane season could be devastating 
for the country. The U.N. Stabilization Mission in Haiti (MINUSTAH) 
continues to perform well and is the major force keeping criminal 
elements in check. My understanding is that several nations in the 
region have participated, are actively participating, or are interested 
in participating in this important U.N. mission.
    Question. How do you assess the security situation in Haiti now, 
and what is your estimate of how the situation will look in 6 months?
    Answer. The potential for violence remains present in Haiti, but 
because of the successes of the MINUSTAH forces, violence will remain 
in check. As I understand it, the 7,000 plus MINUSTAH troops and 2,000 
U.N. civilian police fill the gap left by inadequate force levels and 
capabilities of the Haitian National Police. As long as MINUSTAH 
remains in country while police forces are being recruited and trained, 
violence will remain manageable.
    Question. What conditions or indicators do you consider important 
in determining whether there will be another wave of Haitian 
emigration?
    Answer. In the first quarter of calendar year 2009, I understand 
that migration from Haiti increased when compared to the same period of 
2008. This increase in migration was caused primarily by the downturn 
in the global economy and the ravages of last year's hurricane season. 
The potential for mass migration from Haiti is largely conditioned by 
Haitian perceptions of how quickly they will be interdicted and 
repatriated by the U.S. Coast Guard and/or other U.S. authorities. If 
they perceive they will be quickly interdicted and repatriated, mass 
migration, as I understand it, will be lower. Another condition that 
reduces potential mass migration is Haiti's capability to ensure 
individual safety and provide jobs.
                                  cuba
    Question. Recently, President Obama announced authorization for 
unlimited travel and money transfers for Americans with relatives in 
Cuba and an easing of restrictions on telecommunications.
    What is your view of the need for review and, potentially, revision 
of U.S. policies regarding Cuba?
    Answer. I think U.S. policy, including our policy toward Cuba, 
should be periodically reviewed. As appropriate, if confirmed, I will 
be ready to implement any changes to U.S. policy.
    Question. What is your opinion about the need for, and the pros and 
cons of, military-to-military contact with Cuba?
    Answer. In general, I think military-to-military engagement with 
any nation's armed forces is valuable, consistent with U.S. law and 
policy. Under current Helms-Burton legislation, any significant 
military engagement with Cuba must be met with Cuban willingness to 
discuss Defense Policy, military subordination to democratically 
elected leadership, and military disengagement from domestic economic 
policy. Currently, the only military-to-military contacts I am aware of 
with Cuba are administrative ``fence-line'' meetings conducted by the 
Commanding Officer, U.S. Naval Station Guantanamo Bay and his Cuban 
military counterparts. If confirmed, I will continue to assess the 
value of military engagement with Cuba, consistent with U.S. law and 
policy.
                             guantanamo bay
    Question. If confirmed as Commander of SOUTHCOM, what do you see as 
the major operational challenges to implementing the President's 
January 22, 2009, executive order directing the closure of the 
Guantanamo Bay detention facility?
    Answer. From what I've studied, logistics and security are the 
major operational challenges of closing the detention facility. The 
specifics of the logistical and security challenges will be worked as 
the final placement of detainees is determined. If confirmed, I will 
ensure SOUTHCOM continues close coordination with the joint community, 
the interagency, and multinational partners to provide the safe and 
humane care, custody, and transport of detainees as directed by the 
Secretary of Defense, consistent with U.S. law and policy.
    Question. Regardless of the outcome of ongoing discussions on 
closing the Guantanamo Bay detention facility, what is your assessment 
of the value of this military base? Is it a strategic asset for 
SOUTHCOM?
    Answer. The U.S. Naval Station, on which the detention facility is 
located, is a separate command with a separate mission from that of the 
detention facility. For example, the Naval Station supports the 
Department of Homeland Security in the event of a mass migration. The 
Naval Station, with its airfield and port, remains an important 
strategic facility for the United States and should remain open long 
after the detention facility closes.
                               venezuela
    Question. U.S.-Venezuelan relations have continued to be strained 
as President Chavez continues to propagate anti-American rhetoric, 
import increasing amounts of military armament, politicize the 
Venezuelan military forces, and export his brand of populism to the 
region.
    What is your view of President Chavez's intentions in the region?
    Answer. I think President Chavez seeks to establish Venezuela as 
the leader of a broad anti-U.S. populist movement throughout the region 
and is working to limit U.S. influence and engagement.
    Question. How would you characterize the current state of military-
to-military relations between the United States and Venezuela?
    Answer. I understand military-to-military relations with Venezuela 
are minimal, despite SOUTHCOM efforts to maintain interaction and 
dialogue. SOUTHCOM invites Venezuela to regional military events, 
including international and regional military forums, but they have not 
attended lately. JIATF-S maintains an opening for a Venezuelan liaison 
officer; however, Venezuela has chosen not to fill that position for 
over a year. If confirmed, I will continue to seek engagement 
opportunities with the Venezuelan military.
    Question. What role do you see President Chavez playing in national 
elections throughout the SOUTHCOM's area of operations?
    Answer. I think President Chavez will continue to support political 
parties, grass-roots organizations and anti-U.S. candidates throughout 
the region who support his populist program and his anti-U.S. stance. 
Currently, lower oil prices have limited the Government of Venezuela's 
ability to support this effort.
    Question. How would you assess Venezuelan relations with China, 
Cuba, Iran, and Russia vis-a-vis the national interests of the United 
States?
    Answer. I think Venezuela is strengthening its ties with Cuba, 
China, Iran, and Russia. President Chavez recently visited China, 
during which the PRC leadership recognized Venezuela as a ``strategic 
partner.'' In addition, Iranian President Ahmadinejad has made a number 
of visits to Venezuela, signing an agreement on military cooperation 
and agreeing to establish several multi-billion dollar investments. 
Russia has also been active with Venezuela. During a visit to Venezuela 
last year, Russian Navy ships conducted a naval exercise of limited 
scope with the Venezuelan Navy. If confirmed, I will monitor 
developments in Venezuelan relations closely, particularly as they 
relate to U.S. national security interests.
                                bolivia
    Question. In the past few years, Bolivia has experienced extreme 
political unrest and, lately, President Morales has taken some 
positions that could complicate U.S. relations with Bolivia.
    How do you assess the situation in Bolivia and, if confirmed, how 
would you seek to accomplish the goals of combating drug trafficking 
and enhancing military engagement goals?
    Answer. In October 2008, President Morales declared the U.S. 
Ambassador persona non grata and also evicted U.S. DEA representatives 
from Bolivia. Under President Morales, U.S. relations with Bolivia 
continue to erode while Bolivia's relations with Venezuela, Cuba and 
Iran improve. In addition, despite earlier cooperation with the United 
States in the interdiction of narcotics, Bolivia is now the world's 
third largest producer of coca. My understanding is that military-to-
military relations with Bolivia continue to deteriorate despite 
SOUTHCOM and country team efforts to remain engaged. If confirmed, I 
will promote limited military-to-military relationships with the 
Bolivian armed forces, to include educational programs, conferences, 
and seminars in line with U.S. Government policy towards Bolivia.
                                 panama
    Question. How do you assess the current political and economic 
situation in Panama?
    Answer. Panama is a stable country with a strong economy.
    Question. To what extent do you assess that the Panamanian 
Government attempts to interdict the drug flow out of South America 
through Panama?
    Answer. My understanding is that Panama, within the constraints of 
their resources, actively cooperates with U.S. counter-drug efforts to 
stem the flow of drugs through their country.
    Question. What is your assessment of how Panama is protecting and 
maintaining the Panama Canal?
    Answer. The Panama Canal is a significant strategic waterway and 
plays a significant role in global trade. The complex endeavor of 
operating and protecting the Canal is a top priority of the Panamanian 
government. Addressing this challenge, I understand that Panama 
continues investing in technology and security training to enhance its 
defensive ability and continues working with regional allies to protect 
the Canal. SOUTHCOM annually conducts Exercise PANAMAX, a joint, 
multinational training exercise focused on defending the Panama Canal. 
Last year, PANAMAX was SOUTHCOM's largest and most comprehensive 
exercise to date with 20 participating nations.
    Question. How vulnerable is the Panama Canal to attack by 
terrorists, and what would be the consequences of an attack to U.S. 
national security interests?
    Answer. The Panama Canal is the most important infrastructure in 
SOUTHCOM's area of focus. The Canal is economically important to the 
world and critical to the people of Panama. Two-thirds of the goods 
that pass through the Canal are moving to or from U.S. ports. The 
disruption of Canal operations would create a significant impact on 
global commerce as well as the U.S. economy.
    Securing the Canal is a complex challenge. The Panama Canal 
Authority Security Division is responsible for securing the Canal. In 
addition, SOUTHCOM and many of the armed forces in Latin American work 
together to ensure the Canal's security. Annually, SOUTHCOM conducts a 
multinational exercise, Panamax, providing a critical training exercise 
focused on defending the Canal. It is the primary example of the 
regional cooperative security efforts focused on keeping the Canal 
secure.
                      forward operating locations
    Question. One of the elements of the regional counternarcotics 
strategy is the SOUTHCOM's establishment of forward operating locations 
(FOLs) in the source and transit zone.
    In your view, what is the role that these FOLs play in the 
Department's counternarcotics efforts?
    Answer. Now called Cooperative Security Locations (CSLs), my 
understanding of SOUTHCOM's CSLs is that they provide strategic basing 
for the conduct of regional counternarcotic detection and monitoring 
operations. Because forward bases are closer to the narcotic operation 
source and transit areas, CSLs increase the mission effectiveness of 
detection and monitoring operations because they significantly reduce 
aircraft transit time to and from the search areas. The CSLs in Curacao 
and Aruba, Netherlands Antilles, and in Comalapa, El Salvador remain 
critical to the success of the detection and monitoring mission.
    Question. In your view, does current use continue to justify the 
costs of sustaining these locations?
    Answer. I think the cost of supporting the CSLs is justified. As I 
mentioned earlier, SOUTHCOM's task force stopped more than 228 metric 
tons of cocaine in 2008. In my estimate, if SOUTHCOM were asked to 
provide the same results without operating from CSLs, the cost of 
operations would be significantly higher because the number of aircraft 
and the number of flight hours required to accomplish the mission would 
be much higher.
    Question. What assurances do we have from host nations that these 
locations will continue to be available to us, and under what 
conditions?
    Answer. Beyond the current 10 year agreements, there are no 
assurances from any of the host nations. My understanding is that our 
relationships with host countries, the Dutch Government (in the case of 
Aruba/Curacao), the El Salvadoran Government (in the case of Comalapa), 
and the Honduran Government (in the case of Soto Cano, JTF-B) are 
strong. These agreements provide mutual benefit. If confirmed, I 
support continuing these operating agreements.
    Question. Since 1999, the United States has operated an Air Force 
counter drug unit out of a Forward Operation Location in Manta, 
Ecuador. However, last year, the Government of Ecuador decided the U.S. 
military was no longer welcome. According to the U.S. Ambassador in 
Ecuador, all U.S. personnel and equipment must be out of the country 
before November. At present, no new location for a similar base has 
been confirmed.
    What is your understanding of the status of our transition from 
Eloy Alfaro Air Base in Manta, Ecuador to an alternative location?
    Answer. It is my understanding that the Government of Ecuador 
fulfilled its agreement allowing the United States to conduct 
counterdrug operations out of Manta through 2009. They chose not to 
renew that agreement. If confirmed, I'll ensure SOUTHCOM acts as a good 
tenant and leaves Manta in improved condition. From my understanding, 
the current turnover plan calls for a cessation of operations by mid-
July to allow for an orderly turnover of facilities by the end of 
September 2009.
    I'm told that the base at Manta provided a unique set of 
capabilities that are difficult to replace in a single location. I 
understand SOUTHCOM is looking at several options to mitigate the loss 
of Manta and, if confirmed, I will review the results of this 
assessment and work to find the best solutions.
    Question. What is your assessment of whether maintaining a presence 
on the Pacific Coast is critical to U.S. counternarcotics activities?
    Answer. As I understand it, the loss of operational reach provided 
by Manta will impact the detection and monitoring in the Eastern 
Pacific. Some operations can be conducted from other facilities in the 
region and will mitigate some of the loss of Manta. However, operating 
from different locations creates new problem sets, such as increased 
transit times and operational costs. If confirmed, I will continue to 
analyze the options to offset the loss of Manta and work towards the 
best possible solutions.
                                colombia
    Question. Plan Colombia has enabled the Colombian Government to 
make significant gains against the Revolutionary Armed Forces of 
Colombia (FARC) and other paramilitary forces in Colombia, as well as 
enabled the government to secure many of its previously ungoverned 
areas. In recent months, there has been much discussion about the 
impact of the global economic downturn on Latin America. Over the past 
decade, the United States has provided over $6 billion to help the 
Colombians secure their country and eliminate domestic terrorist 
groups. As planned, this funding is declining in the coming fiscal 
years.
    What are your views regarding the current situation in Colombia 
focusing upon: (1) the current military and political situation in 
Colombia; (2) the ability of the Colombian military to regain control 
of its territory; and (3) ongoing DOD programs, including the effects 
of the caps on U.S. troops and contractor personnel?
    Answer. From what I see, Colombia has made a great deal of progress 
in its fight against narco-terrorists. The Uribe administration has 
instilled a sense of hope and pride in the country and Colombia is a 
strong, thriving democracy. Statistics show terrorist attacks, 
homicides and kidnappings have dropped considerably and the Colombian 
military is effectively prosecuting their war against the FARC. The 
FARC has been pushed back and the Government of Colombia now has 
security representation throughout its 1,098 municipalities. Despite 
this success, the FARC and other Illegal Armed Groups still remain a 
threat. While I think U.S. support to Colombia can start moving towards 
a more ``smart power'' approach, I think the United States should 
continue strong support to ensure Colombia's success.
    Question. Do you believe the Colombian Government is capable of 
sustaining the last decade's gains during this economic downturn and 
the scheduled decline in U.S. security assistance?
    Answer. In 2007, the Government of Colombia launched ``Plan 
Consolidation,'' a whole-of-government approach to establish control of 
the territory and provide social and economic development to all 
Colombian citizens. To be sure, the current global economic downturn 
will impact Colombia's ability to fund this plan, but I think they are 
capable and committed to sustaining their hard fought gains. If I am 
confirmed, I look forward to working with the committee to continue 
U.S. support to Colombia.
    Question. When the United States began providing increased support 
through Plan Colombia for efforts to significantly reduce or eliminate 
narcotics organizations operating in their country, many expressed 
concern about the Colombian military's human rights record.
    What is your assessment of the record of the Colombian military 
with regard to respect for human rights over the past 3 years?
    Answer. I am told that, today, the Colombian military is one of the 
most respected institutions in Colombia and continues to improve its 
human rights record. The Ministry of Defense established a 
comprehensive human rights and International Humanitarian Law (IHL) 
program. Colombian military forces are required to receive mandatory 
human rights training, for every officer and soldier at every stage of 
their military careers. The Colombian military continues to partner 
with civil society groups, universities, and international 
organizations to strengthen their human rights programs. These programs 
have been instrumental in reducing the number of human rights 
complaints against the Colombian military.
    Colombia continues to aggressively address human rights 
infractions. Recently, the Colombian Army dismissed 27 Army personnel, 
including three generals, for not conforming to human rights standards. 
I think Colombia will continue to aggressively pursue and tackle human 
rights issues, and if confirmed, I will keep human rights as a key 
element of SOUTHCOM's interaction with Colombia.
    Question. What remains to be done and how would you approach the 
issue of respect for human rights in the Colombian military?
    Answer. If confirmed, I will continue to keep human rights as a key 
element of SOUTHCOM's interaction with Colombia.
         western hemisphere institute for security cooperation
    Question. The Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities through the 
education and training of students in the Western Hemisphere from 
Canada to Chile.
    What is the relationship between SOUTHCOM and WHINSEC?
    Answer. WHINSEC does not fall under SOUTHCOM's authority but is one 
of many valuable tools available to strengthen military-to-military 
relations in the region. I also understand the Commander of SOUTHCOM is 
a member of WHINSEC's Board of Visitors. If confirmed, I look forward 
to joining this distinguished group.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. WHINSEC provides important training, education, and 
relationship building opportunities that are absolutely vital to 
advancing security cooperation in the Western Hemisphere. These 
objectives support the U.S. goal of building lasting partnerships and 
promoting broad national security interests. In my view, Congress was 
correct when it wrote in section 1257 of the National Defense 
Authorization Act for Fiscal Year 2008 that WHINSEC ``is an invaluable 
education and training facility which the DOD should continue to 
utilize in order to help foster a spirit of partnership and 
interoperability among the United States military and the militaries of 
participating nations.'' If confirmed, I will continue SOUTHCOM's 
support of WHINSEC.
    Question. In your view, how does SOUTHCOM participate in command 
oversight and curriculum development?
    Answer. SOUTHCOM regularly reviews the curriculum to ensure it 
matches and supports SOUTHCOM theater security cooperation objectives 
and regional priorities. I understand the command recommends changes, 
as required.
    Question. In your view, what more, if anything, does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. From what I understand, WHINSEC has a very comprehensive 
human rights program and maximizes the quality and quantity of human 
rights instruction in its curriculum. If confirmed, I will continue to 
monitor and assess the human rights curriculum, stressing the value of 
WHINSEC attendance for Western Hemisphere militaries and police forces.
    Question. In your view, how can WHINSEC improve its outreach 
efforts to individuals or groups interested in its activities, 
particularly those who have accused the school of contributing to human 
rights violations by former students?
    Answer. From all accounts, WHINSEC is a very transparent 
institution. In my view, WHINSEC should maintain this transparency and 
continue its open program of encouraging individuals and groups to 
visit the school whenever desired. Maintaining a transparent, open 
program can help minimize accusations against the school.
                   iranian influence in latin america
    Question. In testimony before the Senate Armed Services Committee 
in January 2009, Secretary Gates expressed real concern about Iranian 
``subversive activity.'' He went on to say ``[t]hey're opening a lot of 
offices and a lot of fronts behind which they interfere in what is 
going on in some of these countries.''
    What do you assess to be the intent of Iranians in Latin America 
and are governments in Latin America welcoming the Iranians?
    Answer. Like Secretary Gates, I am concerned about Iran's meddling 
in Latin America. Iran is a state sponsor of terror. I'm told that Iran 
has increased its diplomatic efforts in the region and has initiated 
trade relations with many countries in the region. I think Iran's goal 
is to decrease U.S. influence in the region and support those countries 
with an anti-U.S. message.
    Most of the governments in the region appear to welcome Iran as a 
potential economic partner. For example, President Ahmadinejad has had 
numerous visits to Venezuela, and there have been numerous multi-
billion dollar investments between the two countries in recent years.
    Question. In your view, is there a connection between the Iranians 
and the drug trade?
    Answer. I have not been told of any direct connection between Iran 
and the drug trade in the SOUTHCOM area of focus.
    sexual assault prevention and response in u.s. southern command
    Question. Numerous cases of sexual misconduct involving military 
personnel have been reported over the last several years. Many victims 
and their advocates contend that they were victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
military treatment. They assert that their command failed to respond 
appropriately by providing basic services, including medical attention 
and criminal investigation of their charges.
    What is your understanding of the resources and programs in place 
in SOUTHCOM to offer victims of sexual assault the medical, 
psychological, and legal help that they need?
    Answer. I am told that SOUTHCOM has an active Sexual Assault 
Prevention and Response program in place that affords victims all the 
help they need. The command has a Zero Tolerance Policy and ensures all 
incidents are handled using the exact procedures outlined in DOD 
directives and policy, which promote sensitive care, confidential 
reporting for victims of sexual assault, and accountability for those 
who commit these crimes.
    SOUTHCOM has a dedicated Sexual Assault Response Coordinator (SARC) 
who is trained to respond to allegations of sexual assault and provide 
victim advocacy. The SARC is knowledgeable of reporting requirements 
and victims' rights regarding medical care, investigation, legal 
assistance and restricted reporting, and maintains direct personal 
contact with all military assistance providers. Because SOUTHCOM is 
located in a large urban area, the SARC also maintains contacts with 
local social services agencies.
    Question. What is your view of steps taken to prevent sexual 
assaults in SOUTHCOM?
    Answer. From my perspective, SOUTHCOM has a positive command 
climate that emphasizes civility and mutual respect. The command took 
specific action to prevent incidents of sexual assault, including 
establishing a sexual assault prevention training and awareness 
program, encouraging victims to report incidents of sexual assault 
without fear, ensuring leaders understood their roles and 
responsibilities regarding response to sexual assault incidents, and 
establishing a toll-free help line for reporting Sexual Assault and 
Harassment. In regards to victim care and response, the command ensures 
sensitive and comprehensive treatment to restore victims' health and 
well-being, thoroughly investigates allegations of sexual assault, and 
takes appropriate administrative and disciplinary action. If confirmed, 
I will continue SOUTHCOM's zero tolerance policy, actively support its 
programs, and regularly monitor and assess its operations and 
resources.
    Question. What is your view of the adequacy of the training and 
resources in SOUTHCOM to investigate and respond to allegations of 
sexual assault?
    Answer. I am told that SOUTHCOM provides its personnel the 
resources needed to investigate and respond to sexual assault 
allegations. The Army, as the Headquarters executive agent, uses a 
comprehensive Sexual Assault Prevention and Response Program Training 
Support Package to provide training to all military personnel, which is 
further enhanced by senior leader emphasis. SOUTHCOM recently 
participated in the Army's 2009 Sexual Assault Prevention Summit in 
Washington, DC, ensuring that key people received world-class training 
during the summit.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. Yes. I am told that the policies and procedures, outlined 
above, are effective.
    Question. What problems, if any, are you aware of regarding the 
manner in which the confidential reporting procedures have been put 
into effect?
    Answer. In my view the policies and procedures in place are strong.
        mental health of servicemembers and stress on the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care to deal with this increased stress. The 
Chairman of the Joint Chiefs of Staff recently said that the shooting 
of five servicemembers at a stress control clinic by a troubled Army 
sergeant in Iraq speaks to ``the need . . . to redouble our efforts'' 
and ``the issue of multiple deployments'' and increasing dwell time 
``to try to improve to relieve that stress.'' This tragic incident, as 
well as increasing suicide rates in every Service, are clear reminders 
that servicemembers, particularly those who have been deployed multiple 
times, are under tremendous stress and need access to mental health 
care.
    In your view, are there sufficient mental health assets in SOUTHCOM 
to address the mental health needs of the military personnel and their 
families?
    Answer. As I understand it, the majority of forces that deploy 
within the SOUTHCOM region rely on their parent service for medical 
care during post-deployment, including the very important post-
deployment monitoring of mental health. During deployment, the SOUTHCOM 
Surgeon closely monitors all command mental health issues and helps 
ensure that SOUTHCOM provides necessary immediate support.
    The approximately 1,500 personnel assigned to the SOUTHCOM 
Headquarters have their medical needs met through a small U.S. Army 
Health Clinic. I have been told that no organic mental health 
professionals are assigned to this clinic and that patients are 
referred to civilian providers to address their mental health needs.
    Question. If confirmed, what actions will you take to address the 
mental health needs of military personnel and their families in 
SOUTHCOM?
    Answer. If confirmed, I will continue the emphasis on ensuring that 
military personnel and their families have adequate access to mental 
health services, including programs on suicide prevention and substance 
abuse prevention and treatment. I will work to improve the coordination 
between headquarters SOUTHCOM's military doctors and local civilian 
providers to ensure that we understand and address the mental health 
needs of our personnel.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. As an official policy matter, I defer questions associated 
with the U.N. Law of the Sea Convention to the Chief of Naval 
Operations. However, as a joint officer, I support the U.S. accession 
to the Convention.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. The Law of the Sea Convention codifies navigation and 
overflight rights and high seas freedoms that are essential for the 
global mobility of our Armed Forces. From a national security 
standpoint, UNCLOS does not hinder military forces; rather, it directly 
supports our National Security Strategy. It is my understanding that as 
a matter of customary law the United States is already in compliance. I 
also understand that Article 298 of the Convention permits the United 
States to completely exempt its military activities from dispute 
resolution.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, SOUTHCOM?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Susan Collins
                            drug trafficking
    1. Senator Collins. General Fraser, media reports indicate the 
Revolutionary Armed Forces of Colombia and other Colombian traffickers 
are shipping more drugs from Colombia overland across Panama to avoid 
tighter control of the Pacific and Caribbean coastal waterways by the 
Panamanian and U.S. naval forces, further suggesting that Panama could 
become the next narcotics battleground. If confirmed, will you have the 
resources you need in order to counter these adversarial efforts to 
shift from sea to shore lines of communications?
    General Fraser. I am very concerned about the change in illicit 
trafficking patterns through Panama and, for that matter, the rest of 
Central America. Drug trafficking organizations look for the paths of 
least resistance and are finding them in Central America. They exploit 
borders and under-governed areas. To counter their activity, the United 
States can work with nations in the region to build and pursue a 
comprehensive regional approach that includes international 
partnerships and a U.S. ``whole-of-government'' effort. I understand 
that U.S. Southern Command (SOUTHCOM) actively supports U.S. Government 
and international counternarcotics efforts in the region by building 
partner nation capacity and capability. If confirmed, I will continue 
this approach and look for ways to enhance SOUTHCOM's support to U.S. 
and international programs.
    While I need more time to study this issue, I'm told that SOUTHCOM 
could make a relatively significant impact on trafficking in Panama and 
Central America with nominal increases in resources, including greater 
support for partner nation Maritime Patrol Aircraft, enhanced support 
for Joint Combined Operations Centers in the region and further 
development and support for vetted host nation response forces.

    2. Senator Collins. General Fraser, increased enforcement activity 
on both sides of the southwest border may be prompting the Mexican drug 
cartels to exploit maritime coastal smuggling routes. In recent months, 
the Coast Guard and the Drug Enforcement Agency have successfully made 
drug interdictions in the Brownsville ship channel (two undocumented 
men on a raft with 240 pounds of marijuana), as well as Corpus Christi 
and remote portions of South Padre Island. What actions are being taken 
to deny the cartels' use of these coastal smuggling routes?
    General Fraser. While Mexico is a part of the U.S. Northern Command 
(NORTHCOM) area of focus, I understand that SOUTHCOM works closely with 
NORTHCOM to counter illicit trafficking and its effects in Mexico. 
Central America is facing similar challenges because it is used by 
traffickers as the major transit-zone for moving narcotics into Mexico. 
I'm told that SOUTHCOM is engaged with NORTHCOM to integrate partner 
nation and U.S. surveillance and communication assets in ongoing 
efforts to counter illicit trafficking. Additionally, SOUTHCOM is 
working with Partner Nations to train and equip security forces in the 
region. If confirmed, I will continue these efforts. In addition, I 
will continue to seek congressional support for many of the regional 
initiatives, such as the Merida Initiative and ongoing SOUTHCOM efforts 
to build partner nation capabilities.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Douglas M. Fraser, 
USAF, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General.

    Lt. Gen. Douglas M. Fraser, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Douglas M. Fraser, 
USAF, which was transmitted to the committee at the time the 
nomination was referred, follows:]
        Biographical Sketch of Lt. Gen. Douglas M. Fraser, USAF
    Lt. Gen. Douglas M. Fraser is Deputy Commander, U.S. Pacific 
Command, Camp H.M. Smith, HI.
    General Fraser earned his commission upon graduation from the U.S. 
Air Force Academy in 1975. His operational assignments include Europe, 
the Pacific, Air Combat Command and Air Force Space Command. Prior to 
this current assignment, he was Commander, Alaskan Command, U.S. 
Pacific Command; Commander, 11th Air Force, Pacific Air Forces; and 
Commander, Alaskan North American Defense Region, with headquarters at 
Elmendorf Air Force Base, AK.
    The general is a command pilot with more than 2,700 flying hours, 
primarily in the F-15A/B/C/D, F-15E, and the F-16.
                                 ______
                                 
      Resume of Career Service of Lt. Gen. Douglas M. Fraser, USAF
Education:
    1975 Bachelor of Science degree in political science, U.S. Air 
Force Academy, Colorado Springs, CO.
    1979 Squadron Officer School, Maxwell Air Force Base, AL.
    1987 Air Command and Staff College, Maxwell Air Force Base, AL.
    1987 Master's degree in political science, Auburn University at 
Montgomery, AL.
    1992 National War College, Fort Lesley J. McNair, Washington, DC
    2005 Joint Flag Officer Warfighting Course, Maxwell Air Force Base, 
AL.

Assignments:
    August 1975-July 1976, student, undergraduate pilot training, Vance 
Air Force Base, OK.
    September 1976-March 1977, F-15 student, 405th Tactical Training 
Unit, Luke Air Force Base, AZ.
    June 1977-May 1980, F-15 pilot, 36th Tactical Fighter Wing, Bitburg 
Air Base, West Germany.
    June 1980-June 1983, F-15 squadron weapons officer, 405th Tactical 
Training Wing, Luke Air Force Base, AZ.
    July 1983-June 1985, flight commander, 49th Tactical Fighter Wing, 
Holloman Air Force Base, NM.
    July 1985-July 1986, aide to the Commander, 12th Air Force, 
Bergstrom Air Force Base, TX.
    August 1986-June 1987, student, Air Command and Staff College, 
Maxwell Air Force Base, AL.
    July 1987-July 1989, fighter programmer, Directorate of Programs 
and Resources, Headquarters U.S. Air Force, Washington, DC.
    July 1989-May 1991, member, Chief of Staff of the Air Force Staff 
Group, Headquarters U.S. Air Force, Washington, DC.
    July 1991-June 1992, Commander, Weapons and Tactics Flight, 18th 
Operations Support Squadron, Kadena Air Base, Japan.
    June 1992-October 1992, Director of Operations, 44th Fighter 
Squadron, Kadena Air Base, Japan.
    October 1992-July 1993, Commander, 12th Fighter Squadron, Kadena 
Air Base, Japan.
    August 1993-June 1994, student, National War College, Fort Lesley 
J. McNair, Washington, DC.
    July 1994-July 1996, analysis assistant, Office of Assistant 
Secretary of Defense for Strategy and Requirements, Washington, DC.
    July 1996-June 1997, Director, Chief of Staff of the Air Force 
Operations Group, Headquarters U.S. Air Force, Washington, DC.
    July 1997-January 1999, Commander, 366th Operations Group, Mountain 
Home Air Force Base, ID.
    February 1999-January 2000, executive assistant to the Commander in 
Chief, U.S. Pacific Command, Camp H.M. Smith, HI.
    January 2000-April 2002, Commander, 3rd Wing, Elmendorf Air Force 
Base, AK.
    April 2002-June 2003, Commander, Space Warfare Center, Air Force 
Space Command, Schriever Air Force Base, CO.
    May 2003-October 2005, Director of Air and Space Operations, 
Headquarters Air Force Space Command, Peterson Air Force Base, CO.
    October 2005-April 2008, Commander, Alaskan Command, U.S. Pacific 
Command; Commander, 11th Air Force, Pacific Air Forces; and Commander, 
Alaskan North American Defense Region, Elmendorf Air Force Base, AK.
    April 2008-present, Deputy Commander, U.S. Pacific Command, Camp 
H.M. Smith, HI.

Flight information:
    Rating: Command pilot
    Flight hours: More than 2,700
    Aircraft flown: F-15A/B/C/D, F-15E, and F-16

Major awards and decorations:
    Distinguished Service Medal
    Defense Superior Service Medal with oak leaf cluster
    Legion of Merit
    Meritorious Service Medal with three oak leaf clusters
    Air Force Commendation Medal with oak leaf cluster
    Air Force Achievement Medal

Effective dates of promotion:
    Second Lieutenant - June 4, 1975
    First Lieutenant - June 4, 1977
    Captain - June 4, 1979
    Major - Oct. 1, 1986
    Lieutenant Colonel - April 1, 1990
    Colonel - Feb. 1, 1995
    Brigadier General - July 1, 2001
    Major General - Aug. 1, 2004
    Lieutenant General - Oct. 11, 2005
    (Current as of May 2008)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Lt. Gen. 
Douglas M. Fraser, USAF, in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Douglas M. Fraser.

    2. Position to which nominated:
    Commander, United States Southern Command.

    3. Date of nomination:
    April 23, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 16, 1953; Casper, WY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rena Kate Fraser (maiden name: Doty).

    7. Names and ages of children:
    Heather C. Lyman, 31.
    Ian D. Fraser, 28.
    Hannah E. Green, 17.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member - Air Force Association
    Member and local Flight Captain (2001-2003) - Order of the 
Daedalians
    Member - National War College Alumni Association
    Member - Air Force Academy Association of Graduates
    Member - Command Bar Stool Association (1984-1993)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Douglas M. Fraser.
    This 23th day of March, 2009.

    [The nomination of Lt. Gen. Douglas M. Fraser, USAF, was 
reported to the Senate by Chairman Levin on June 9, 2009, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 10, 2009.]
                              ----------                              

    [Prepared questions submitted to LTG Stanley A. McChrystal, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, North Atlantic Treaty Organization (NATO) International 
Security Assistance Force (ISAF)?
    Answer. Commander, ISAF is responsible for executing NATO's 
strategy in Afghanistan as delineated in OPLAN 10302. Commander, ISAF's 
responsibility is to ensure that ISAF forces are utilized in the most 
effective manner possible in order to accomplish its objectives under 
U.N. mandate as well as meet the reporting requirements of Supreme 
Allied Commander, Europe (SACEUR) (as Commander of NATO Operations).
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Forces-Afghanistan (USFOR-A), and how do those 
duties and functions relate to those of the Commander, NATO ISAF?
    Answer. The Commander of the United States Central Command 
(CENTCOM) is my immediate commanding officer in the U.S. chain of 
command. Pursuant to title 10, U.S.C., section 164, he exercises 
combatant command authority which includes the command functions of 
giving authoritative direction over all aspects of military operations, 
joint training and logistics, over all U.S. forces in Afghanistan, less 
those under NATO Operational Control to ISAF. Commander, CENTCOM 
provides the national level logistics and administrative support to 
USFOR-A to accomplish its mission as the National Support Element (NSE) 
for U.S. forces under NATO Operational Control to ISAF.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My operational experience in Afghanistan, Iraq, and other 
locations from 2002-2008 have provided me extensive experience in the 
region--and this conflict. While the operational focus of my most 
recent command (JSOC) focused primarily on counterterrorist operations, 
our integration with wider counterinsurgency efforts provided me almost 
continuous interaction with units and commands of every type and at 
every level.
    At the strategic level, my assignments (2002-2003 and 2008-present) 
on the Joint Staff as the Vice Director, J-3 and then Director, Joint 
Staff have provided me insights into strategic issues and 
decisionmaking processes.
    Finally, since 2001 I have had unique opportunities for extensive 
interaction with a wide range of U.S. Government interagency partners 
and had British Forces in my Joint Task Force in Iraq for almost 5 
years.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
ISAF, and/or Commander, USFOR-A?
    Answer. Yes, I need to better understand the NATO construct and the 
nuances of being a NATO commander. As for USFOR-A, I need to better 
understand the NSE and NCE responsibilities.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander, ISAF/Commander, USFOR-A, to the following:
    NATO Supreme Allied Commander, Europe.
    Answer. Commander, ISAF is a subordinate commander, through Joint 
Forces Command Brunssum, to NATO's Supreme Allied Commander, Europe 
(SACEUR). SACEUR is one of NATO's two strategic commanders and is the 
head of Allied Command Operations. As such, he is responsible for the 
command and control of all NATO military operations, to include 
identifying forces required for the mission and requesting those forces 
from NATO countries, as authorized by the North Atlantic Council and as 
directed by NATO's military committee.
    Question. NATO Supreme Allied Commander, Transformation.
    Answer. As the other strategic commander within NATO, Supreme 
Allied Commander Transformation (SAC-T) and SACEUR work in tandem to 
promote the evolution of NATO's military capabilities and the requisite 
interoperability of those capabilities. Commander, ISAF coordinates 
with SAC-T to leverage the expertise of ACT in order to maximize the 
effectiveness of pre-deployment training efforts and capture lessons 
learned of our NATO forces once in theater.
    Question. NATO Military Committee.
    Answer. The Military Committee (MC) is charged with providing the 
North Atlantic Council (NAC) military advice on policy and strategy. As 
such, there is not a direct command relationship between Commander, 
ISAF and the MC. However, it is critical that Commander, ISAF provide 
honest and timely assessments of the situation so that the MC can make 
informed recommendations for the NAC.
    Question. Commander, U.S. Central Command.
    Answer. The Commander of CENTCOM, as my immediate commanding 
officer in the U.S. chain of command, exercises combatant command 
authority over USFOR-A and provides the national level logistics and 
administrative support for USFOR-A to accomplish its mission as the NSE 
for forces under NATO Operational control to ISAF.
    Question. Commander, Combined Joint Task Force 82, Afghanistan.
    Answer. Operational control of forces assigned to ISAF is exercised 
through Regional Commanders. The United States is the designated lead 
for Regional Command (RC)-East, and as such, Commander, ISAF exercises 
control over U.S. forces assigned to RC-East via Combined Joint Task 
Force-101. The 82nd Airborne Division is currently transitioning with 
the 101st Airborne Division and is expected to complete Transfer of 
Authority (TOA) by 1 June 2009. The COMUSFOR-A functions as the 
National Command and NSE for all forces under the command of CJTF-82.
    Question. Commander, Combined Special Operations, Joint Task Force, 
Afghanistan.
    Answer. Commander, ISAF has no command relationship, other than a 
coordinating role through the DCOS Operations. However, as Commander of 
USFOR-A, the forces assigned to CJSOTF fall under the command of 
Combined Forces Special Operations Component Command-Afghanistan 
(CFSOCC-A) which falls under the tactical control of USFOR-A. This 
allows Commander of USFOR-A to integrate the Foreign Internal Defense 
(FID) tasks planned and executed by CFSOCC-A with the counterinsurgency 
(COIN) plans and tasks executed by ISAF. Since counterterrorism, FID 
and counternarcotics (CN) must be integrated with COIN for operations 
in Afghanistan to be successful, having CFSOCC-A under the tactical 
control of USFOR-A helps him synchronize the COIN fight successfully.
    Question. Commander, Combined Security Transition Command-
Afghanistan (CSTC-A).
    Answer. CSTC-A is responsible for planning, programming, and 
implementing the generation and development of the Afghan National 
Security Forces (ANSF). CSTC-A is operationally controlled by and 
receives tasks and orders from USFOR-A. CSTC-A also has coordinating 
authority with ISAF in order to synchronize ANSF development with the 
COIN mission.
    Question. United Nations Special Representative in Afghanistan.
    Answer. Commander, ISAF and the United Nations Special 
Representative work together in close coordination and partnership. The 
role of Commander, ISAF is to create a security environment that 
enables government capacity building and development efforts by UNAMA 
and other international agencies that ultimately will benefit the 
Afghan Government and its people.
    Question. U.S. Ambassador to Afghanistan.
    Answer. The U.S. Ambassador to Afghanistan is the President's 
Senior Representative in the country. Commander, USFOR-A serves as the 
senior military advisor to the U.S. Ambassador. Commander, USFOR-A and 
the Ambassador work closely together to integrate civilian-military 
efforts across all lines of operation.
           afghanistan-pakistan strategy and major challenges
    Question. What role, if any, did you play in the formulation of the 
administration's new strategy for Afghanistan and Pakistan announced in 
March?
    Answer. In my position as the Director of the Joint Staff, I 
supervised and provided guidance to Joint Staff directorates and 
offices to ensure the Joint Staff effectively coordinated with OSD, 
Services, combatant commands, and the interagency in the development of 
the new Afghanistan-Pakistan strategy. I also provided my inputs to the 
Chairman of the Joint Chiefs of Staff during the formulation of the new 
strategy as he formulated his best military advice for the President.
    Question. Do you agree with the strategic goals set out in the new 
strategy?
    Answer. I agree with the strategic goal and associated strategic 
objectives outlined in the new Afghanistan-Pakistan strategy.
    They dovetail closely with the assessment that the Chairman 
provided to the President through the Secretary of Defense.
    Increasing the strategic calculus to include Pakistan assesses the 
region as a whole in order to address common transnational challenges 
that face both Afghanistan and Pakistan, namely al Qaeda and other 
terrorist organizations.
    The United States has a vital national interest in addressing the 
current and potential security threats posed by extremists in 
Afghanistan and Pakistan. The strategy identifies a realistic and 
achievable strategic goal and strategic objectives in the near- to mid-
term in order to reduce the threat.
    The strategic goal to disrupt, dismantle, and defeat al Qaeda and 
its safe havens in Pakistan, and to prevent their return to Pakistan or 
Afghanistan is essential to the long-term security of the United 
States, our allies, and the region.
    The strategy calls for the resources necessary for a fully-
resourced counterinsurgency. It promotes a whole-of-government 
integrated counterinsurgency approach to address challenges in the 
region. As a result, significantly more resources will be devoted to 
the civilian efforts in both Afghanistan and Pakistan. It also calls 
for a regional approach requiring increased international engagement 
and participation as the international community must work with 
Pakistan to help disrupt the threats to security along Pakistan's 
western border.
    Question. Has NATO adopted those goals?
    Answer. During the recent 60th Anniversary Summit in Strasbourg/
Kehl, NATO Heads of State reiterated the four principles of NATO's 
strategic vision for Afghanistan: long-term commitment, Afghan 
leadership, a comprehensive approach and regional engagement. The U.S. 
strategy includes these principles and in particular it calls for a 
``whole-of-government'' methodology to achieve a comprehensive 
approach.
    Question. What are the major challenges and problems you foresee, 
if confirmed as the next Commander, ISAF/Commander, USFOR-A, in the 
implementation of that strategy?
    Answer. I believe we face three major challenges. The first of 
these is to secure the population and separate them from the 
insurgents. Only where we can prevent insurgents from controlling the 
population through intimidation and coercion can we provide an 
opportunity for the Government of Afghanistan, with our support, to 
establish full legitimate governance and stability.
    Second, we must work to improve governance at every level in order 
to facilitate development and other activities that will strengthen the 
legitimacy of, and popular support for, the Government--and reduce 
insurgent control or influence.
    The third major challenge is to increase the capacity of ANSF (Army 
and Police). Ultimately, security in Afghanistan must be provided by a 
combination of military and police forces of sufficient strength in 
personnel, equipment, and training to cover security missions ranging 
from national defense to local policing.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed it would be my intent to review current 
assessments and strategy, ensuring we produce an Integrated Civilian-
Military Plan to fully integrate efforts. Within that plan, I would 
anticipate designating development of ANSFs as our highest priority 
task, and focusing all our forces on effective execution of 
counterinsurgency operations.
                   security situation in afghanistan
    Question. What is your assessment of the security situation in 
Afghanistan and the nature, size, and scope of the anti-government 
insurgency?
    Answer. The Afghanistan insurgency is Taliban dominated, but 
comprised of multiple groups including al Qaeda pursuing various short 
and long term goals. Their common goals are to expel foreign forces 
from Afghanistan, undermine local and international perceptions of 
security and to ultimately undermine the authority of the Afghan 
Government. There is some operational cooperation between the Taliban 
and other insurgent networks. However, insurgent group identities are 
often blurred by overlapping operating areas and cooperation amongst 
tactical commanders in some areas of Afghanistan. Since 2004, the 
Taliban-led insurgency has continued to increase in scope, and its 
influence has expanded in some geographic areas despite significant 
losses in leadership and military engagements. In addition to the 
increasing quantity of attacks, insurgents have increased tactical 
proficiency and have adapted to coalition countermeasures.
    Violence levels have increased significantly over the last year. 
The increased U.S. force deployments in RC-South will likely result in 
higher violence levels in 2009 because of ISAF initiated operations 
against Taliban controlled areas. While some insurgents will choose to 
directly engage coalition forces in contested areas, most will either 
reintegrate into the local population or relocate to more permissive 
areas in Afghanistan.
    Question. What is the nature and extent of the al Qaeda threat in 
Afghanistan?
    Answer. Reports indicate that the scale and scope of al Qaeda's 
operational presence on-the-ground in Afghanistan has increased--but 
remains limited in size. However, their partnership and support to 
Taliban insurgents cannot be discounted. Despite significant leadership 
losses and increased pressure on its safe havens in Pakistan's 
Federally Administered Tribal Areas (FATA), al Qaeda maintains the 
capability to plan, direct, and support attacks against coalition 
forces in Afghanistan in 2009. Even with these losses, several 
Afghanistan-focused operatives and trainers remain at large and al 
Qaeda's senior leadership structure is largely intact. Al Qaeda 
exploits multiple lines of facilitation (handlers) routes into the 
FATA, relying on facilitation networks for recruits' travel to the 
region.
    Question. What is your understanding of the extent to which the 
Taliban and al Qaeda cooperate in Afghanistan?
    Answer. Despite occasional tensions between Pakistan-based al Qaeda 
senior leaders and the Quetta-based Taliban Senior Shura council, the 
two organizations maintain a mutually beneficial relationship 
characterized by tactical-level cooperation between al Qaeda operatives 
and Taliban commanders in Afghanistan. The nature of their relationship 
is unlikely to change. This relationship, based on historical ties 
(Osama Bin Laden), and overlapping regional goals, is durable--although 
continuing differences over strategic goals persist and intermittently 
provoke tensions between the two groups. Al Qaeda also continues to 
provide tactical expertise and training to Afghan insurgents, focused 
on suicide bombings, IEDs, Vehicle-Borne Improvised Explosive Devices, 
and some logistical support.
                         coalition capabilities
    Question. Do you believe that the current level of ISAF troops and 
equipment in Afghanistan is sufficient to carry out the ISAF mission? 
If not, what are the current shortfalls in troops and/or equipment 
required for that mission?
    Answer. The Combined Joint Statement of Requirements (CJSOR) 
established the total force requirements for ISAF. Shortfalls exist 
which hamper ISAF's ability to carry out the mission to the full extent 
possible. Current shortfalls include various HQ elements, rotary wing 
support, lift and medical evacuation (MEDEVAC) capabilities, and 
airborne Intelligence, Surveillance, and Reconnaissance (ISR) assets. 
If confirmed and once in theater, I will be in a better position to 
review the specific requirements for the mission and recommend 
adjustments to the CJSOR as appropriate.
    Question. Do you believe our NATO allies should be doing more to 
eliminate the shortfall in resourcing the NATO ISAF mission 
requirements?
    Answer. I appreciate the contributions and sacrifices of our allies 
and partners in this complex mission. Having stated that, I do believe 
that our allies could do more to meet the requirements in the CJSOR. If 
confirmed, one of my roles as Commander, ISAF will be to actively 
campaign for capabilities and forces through the chain of command and 
when the opportunity presents itself with allied leadership.
    Question. If NATO members are unable to contribute additional 
military resources to the ISAF mission, do you believe those countries 
should contribute to the Afghanistan mission in other ways, and if so, 
how?
    Answer. By accepting the mission in Afghanistan, the Nations that 
comprise NATO have agreed to share the burden of the mission and each 
one contributes military and civilian resources. Where nations are 
unable to contribute additional military resources to the CJSOR, I 
would ask that they contribute civilian advisors and assistance such as 
police trainers and governance mentors, as well as financially, through 
such mechanisms as the ANA Trust Fund. These aspects of the mission are 
just as critical to the overall success of the strategy in Afghanistan.
                   command structures in afghanistan
    Question. What is your assessment of the current command structures 
for ISAF and for USFOR-A? What changes, if any, would you recommend to 
those command structures?
    Answer. I provide the following response without the benefit of 
having served inside the ISAF command structure. However, I believe 
that one area in which the current command structure falls short is the 
ability of Commander, ISAF to concentrate on strategic and higher-level 
operational tasks, due to his direct role in providing day-to-day 
tactical-level direction to the Regional Commands.
    I would recommend, in coordination with SHAPE, a relook of this 
command arrangement, with a possible three-star level headquarters 
within the ISAF command structure to assume the role of directing the 
counterinsurgency operations of the regional commands. Such a 
headquarters would allow Commander, ISAF to concentrate on strategic 
level tasks, the complexities of the civil-military integration, and 
engaging with the Afghan Government, UNAMA, and the international 
community.
    Question. What is the justification for a U.S. chain of command 
separate from the NATO chain of command?
    Answer. A U.S. chain of command separate from NATO provides unified 
command and control of U.S. efforts outside the NATO mandate, such as 
ANSF development, detention operations, and counter-terrorism 
operations. A separate U.S. command in theater provides unified 
execution and oversight of Title 10 responsibilities and national 
support for logistical, administrative, and intelligence activities.
    Question. Is it your understanding that if you are confirmed as 
Commander, USFOR-A, all U.S. forces in Afghanistan would be under your 
command?
    Answer. Yes, with very few exceptions the details of which are 
classified, all U.S. forces are under my command. However, the command 
relationships are varied depending on the unit and its mission. For 
instance, while the majority of the combat forces conducting 
counterinsurgency operations are under the Operational Control of ISAF, 
I would still have Administrative Control (funding, justice, logistics, 
and intelligence activity supervision) over those units. Some units 
conducting operations under OEF mandate would be under my Operational 
Control. In addition, I would have Tactical Control of select 
counterterrorism elements; while, CENTCOM retains Operational Control 
over them.
    Question. The position of a three-star Deputy Commander, USFOR-A, 
has been established to oversee the day-to-day operations in 
Afghanistan.
    Do you believe there is a need to dual-hat the Deputy Commander, 
USFOR-A, within the ISAF command structure to ensure proper 
coordination of ISAF forces throughout Afghanistan?
    Answer. I believe the optimal solution is to dual-hat the Deputy 
Commander, USFOR-A as the commander of a NATO, 3-star operational 
headquarters. This solution would allow one commander to direct ISAF 
tactical operations and ensure unity of effort where appropriate with 
USFOR-A/OEF operations. I recognize that this is a NATO decision and 
currently under consideration.
              building the afghan national security forces
    Question. The administration's new strategy calls for training and 
equipping the Afghan National Army to a level of 134,000 and the Afghan 
National Police to a level of 82,000, by 2011.
    In your view will the currently-planned end strength levels for the 
ANA and ANP be sufficient to provide security and stability in 
Afghanistan or should these end strength levels be increased? If so, 
what levels would you recommend for the ANA and the ANP?
    Answer. The ANSF today (approximately 86,000 ANA and 82,000 ANP) is 
not of sufficient size to provide long-term security and stability for 
the people of Afghanistan. While I would need to make an on-the-ground 
assessment, at this time I do not believe the current authorized ANSF 
force levels (134,000 ANA and 86,800 ANP) are sufficient to provide 
this security.
    There are two ongoing studies that will help inform our 
recommendations and decisions regarding the future size and 
capabilities of the ANSF. The European Community (EC) has commissioned 
a study, expected to be complete in mid-summer 2009, to assess the 
required capabilities of the Afghan National Police. The Secretary of 
Defense also directed that a detailed analysis, led by CENTCOM and the 
Joint Staff, be conducted in order to help us make informed 
recommendations on options for future end-strength and capabilities for 
both the ANA and the ANP. This study with assessed courses-of-action is 
due back to the Secretary by mid-June 2009. If confirmed, I will use 
the results of both of these studies and my own assessment to make 
recommendations to Secretary Gates on the future size and capabilities 
of the ANSF.
    Question. Traditionally, Foreign Internal Defense (FID) and the 
security force assistance mission have been the responsibility of 
Special Operations Forces (SOFs). Army and Marine Corps general purpose 
forces (GPFs), however, have provided the bulk of the troops advising 
and assisting Afghan National Army and Police forces.
    What is your assessment of the differences between SOF and GPFss in 
performing the security force assistance mission?
    Answer. Both SOF and GPFs have a role in the development of the 
ANSF. Both must be involved in the training, partnering, and mentoring 
of ANSF at the appropriate unit level. Effective and steady ANSF 
development focused on bringing Afghan forces to a level where they can 
operate across the shape, clear, hold, build continuum with minimal to 
no U.S./coalition support is a critical and essential aspect of the new 
strategy.
    The specialized nature of SOF in the FID role provides unique and 
focused skills and training needed by ANSF as they become more advanced 
in their development as a security and COIN force. GPFs bring an order 
of magnitude of capacity to the security force assistance mission that 
does not exist within our SOF. The skills and expertise of GPFs along 
with the larger size of these units provides the opportunity to ensure 
the ANSF are grounded in the essential basics of a professional 
military force as well as the opportunity to engage across a larger 
footprint of ANSF units on a sustained basis.
    I believe the first foundation of any quality COIN force is a well-
trained and disciplined soldier/policeman who understands the basics of 
his profession. GPF and SOF forces together provide that building block 
approach for ANSF development.
    Question. If confirmed, what plans do you have, if any, to employ 
SOFs and GPFs to advise and assist the Afghan National Army and Police?
    Answer. I support the current employment of both SOF and GPF in 
training, partnering, and mentoring the ANSF. SOF provides mentors for 
the Afghan National Army Commando Kandaks (battalions) as well as some 
infantry kandaks. They also provide mentors for the Afghan Public 
Protection Force (APPF), a pilot program. GPFs provide mentors for the 
Afghan National Army and mentors along with civilian police experts for 
the Afghan National Police. Combined Security Transition Command-
Afghanistan (CSTC-A) coordinates the efforts of SOF and GPF in order to 
ensure unity of effort.
    Question. If confirmed, what changes would you recommend, if any, 
with respect to the organizational, training, equipping, or deployment 
policies of GPFs performing the security force assistance mission?
    Answer. If confirmed I would work with CENTCOM, SHAPE, CJCS and our 
Service chiefs to ensure that all units that deploy to Afghanistan can 
conduct the full range of counter insurgency tasks as well as support 
ANSF development. As of this year, all U.S. maneuver units are 
deploying with this dual capability. I would work to ensure that our 
allies and partners prepare and deploy their maneuver forces to do the 
same.
    I would encourage increased language and cultural awareness 
training for all forces. I would seek 1 year tours for ministerial-
level mentors and trainers like their ANA and ANP counterparts in order 
to establish the necessary relationships with their Afghan partners.
    Question. There remains a shortfall in the number of Operational 
Mentoring and Liaison Teams (OMLTs) for training the Afghan National 
Army and for similar embedded training teams for building the 
capabilities of the Afghan National Police.
    What should be done to encourage NATO allies to provide more OMLTs?
    Answer. I believe that there is already progress on the part of 
NATO to increase the number of OMLTs being provided. At the recent NATO 
Summit, Allied Heads of State and Governments all agreed on the 
importance of providing mentoring teams for Afghan security forces. 
There are several Allies, as well as non-NATO partners, who have 
pledged additional OMLTs to fill shortfalls, and although we don't have 
as many as we need yet, we're heading in the right direction.
    Question. What is your assessment of the Afghan National Police? 
What more should be done to build the ANP?
    Answer. The Afghan National Police continue to be challenged by 
corruption, lack of training, and overall capability. Minister of 
Interior Atmar recognizes these shortcomings and has identified 
acceleration of training, elimination of corruption, and force growth 
as his top priorities for the police. I recognize that Police training 
and reform is a joint effort between the U.S. Departments of State and 
Defense, and the European Union Police Mission--Afghanistan (EUPOL). If 
confirmed I will work closely with Ambassador Eikenberry to support 
Minister Atmar's priorities to ensure that police training, reform and 
growth are properly aligned with other larger rule of law and security 
efforts.
    The most critical shortcoming for ANP training has been the 
shortage of trainers and mentors. President Obama's decision in March 
to deploy 4,000 additional trainers to Afghanistan will help to address 
this shortfall. We must also continue to encourage our NATO partners to 
provide police mentors--especially in the districts where they are the 
battlespace owners and where we can create a real synergy of effort to 
develop a quality, respected police force. The United States is already 
adopting this strategy with our COIN Brigade Combat Teams (BCTs) in the 
east and south providing additional police mentors.
    Question. What more can NATO and the European Union Police Mission 
in Afghanistan do in your judgment to improve the effectiveness of the 
police?
    Answer. Reports indicate EUPOL has to date done well in the 
training of police forces and staffs on a provincial level. We must 
continue to support the organization and encourage greater capacity as 
they bring law and order, rule of law, and other police expertise to 
this effort. However, it is readily apparent that the true front lines 
of this conflict are on the district and urban police levels; Afghan 
police officers are suffering a much higher casualty rate at the hands 
of the insurgent forces than their Army counterparts. NATO recognizes 
this and recently approved the concept of a NATO Training Mission-
Afghanistan (NTM-A) geared towards the police force. This concept will 
allow nations to contribute police trainers, and in fact some Allies 
have already pledged personnel even though the details of this concept 
are still being vetted. I completely concur with the U.S. 
recommendation for NTM-A to take on police institutional training and 
will aggressively encourage its application and development.
challenges for accelerating the growth of the afghan national security 
                                 forces
    Question. Witnesses at committee hearings have cited a number of 
challenges impeding the acceleration of expanding the ANSFs, including: 
(1) a lack of training/mentoring teams to embed with Afghan units; (2) 
a lack of equipment; and (3) the challenge of developing leadership 
among officers and noncommissioned officers.
    What in your assessment is the greatest challenge to accelerating 
the growth of the ANSFs?
    Answer. I concur that the greatest international community 
challenge to accelerating the growth of the ANSF is the requirement for 
mentors for these forces. I also concur that the greatest Afghan 
challenge is the development of leadership for the expanded forces.
    Question. If confirmed, how would you recommend addressing this 
challenge?
    Answer. The President's decision in March to deploy the 4/82 BCT to 
provide additional mentors for the ANSFs will allow us to meet our ANA 
embedded training team requirements for the 134K Army and will 
significantly increase the number of ANP police mentor teams. U.S. COIN 
BCTs are also assuming responsibility for police mentors in districts 
within their battlespace. We must continue to encourage our NATO 
partners to provide additional district mentors in order to build 
synergy for security within the battlespace and increase the number of 
districts with police mentor coverage. I also recommend encouraging 
NATO to use the proposed NTM-A as an opportunity to enhance its 
training and mentoring of the ANP.
    Expanding the leadership capacity of the ANSF requires training and 
experience. Both the ANA and ANP have leadership development programs 
in place and if confirmed I will work with CSTC-A and the Ministries to 
identify efficiencies in both programs and also identify other ways to 
mitigate their leadership challenges. However, we must also recognize 
that leader development requires time and we must balance the pressing 
need for additional growth and progress in leadership with this reality 
in order to build forces that are self-sustaining over the long-term.
                    afghan public protection program
    Question. A pilot program called the Afghan Public Protection 
Program (APPP) has been launched in Wardak Province to empower local 
communities to provide for their own security, reportedly modeled on 
the Sons of Iraq program. Some experts have expressed concern, however, 
that the program risks strengthening local warlords.
    What is your assessment of the APPP?
    Answer. As mentioned, and as a pilot program, the APPP is still in 
its early stages but assessments of the APPP up to this point have been 
positive. This pilot program has been closely coordinated among the 
Afghan Ministries of Interior and Defense, USFOR-A, and local Afghan 
authorities and community leaders. If confirmed, I would assess this 
program as part of the overall efforts to improve security.
    Question. What concerns, if any, do you have about the program? If 
confirmed, how would you seek to address those concerns?
    Answer. Connection to and the ability to secure the local 
population are key to the success of the program. We must ensure, 
without creating new tensions, the Ministry of Interior has the 
capability to provide the proper level and quality of oversight, the 
appropriate selection and training of the APPP, and the mutual 
commitment of community leaders and local authorities. Currently, the 
APPP is deployed in one district under the direct control of the local 
police chiefs with guidance and management provided by the MOI as well 
as the district and provincial governors. U.S. forces continue to 
provide oversight and mentoring to the pilot program. Further, all 
members of the APPP are carefully selected through a collaborative 
community vetting process that involves not only village elders and 
shura leaders but key stakeholders from Government of Afghanistan. 
Ensuring the APPP is and remains connected to ANP at the local level is 
critical to avoid a return to `armed bands of warlords'. If confirmed I 
would review this process, and if it is effective, intend to continue 
it.
                            counternarcotics
    Question. What is your assessment of the current U.S. and NATO 
strategies for combating the production and trafficking of illegal 
narcotics in Afghanistan? What changes, if any, would you make in those 
strategies if you are confirmed?
    Answer. The U.S. and NATO military strategies and actions to combat 
the production and trafficking of illegal narcotics in Afghanistan are 
more robust now than before, but we clearly need to continue to 
improve. The corrosive effects of narcotics undermine all efforts to 
improve security, governance, and development in Afghanistan. A nexus 
exists between narcotics and the insurgency as well as corruption and 
criminality. Recent decisions by the NATO Defense Ministers and the 
Secretary of Defense, at the request of the Afghan Government, provided 
the guidance and authorities for both ISAF forces and the U.S. military 
to target the trafficking and production of narcotics where the nexus 
exists. Additionally, the recent change to DOD's international 
counternarcotics policy enabled more robust support and integration of 
capabilities with civilian law enforcement agencies operating in 
Afghanistan.
    I understand the U.S. Government's intent to rebalance its 
counternarcotics strategy and I support this effort because I don't 
think that crop eradication alone is the right approach. I believe we 
need a multi-pronged approach that targets laboratories, traffickers 
and movement of drugs, and facilitators at the same time we work to 
provide alternative income opportunities for farmers.
    Question. In December, Secretary Gates approved an expanded set of 
rules of engagement for U.S. forces combating narcotics in Afghanistan. 
NATO has reportedly approved a comparable expansion of the rules of 
engagement for NATO forces operating in Afghanistan.
    What is your understanding of the reasons behind these changes in 
the counternarcotics rules of engagement and the impact of these 
changes in the rules of engagement?
    Answer. It is clear that a nexus exists between the insurgency and 
the narcotics trade in Afghanistan. Prior to fall 2008, the U.S. 
military's rules of engagement made it problematic to target those 
engaged in the drugs trade and providing support to insurgents. Also, 
military support to host nation and civilian law enforcement agencies 
was restricted by military commanders' interpretation of DOD's 
counternarcotics policy. The refinement of that policy was requested by 
the CENTCOM commander and in December 2008 a new policy was signed out 
that now fosters the integration of military support to law enforcement 
activities against the narcotics trade in Afghanistan. The guidance 
from the NATO Defense Ministers' meeting in November of 2008 resulted 
in the refinement of ISAF's Operational Plan (OPLAN) counternarcotics 
annex (Annex RR) rules of engagement to ``take action in concert with 
the Afghans against facilities and facilitators of the narcotics trade 
supporting the insurgency.''
    Question. When recently asked about what U.S. and NATO forces had 
done to stop the flow of opium and heroin, the Afghan Minister for 
Counternarcotics reportedly said ``nothing.'' This response is deeply 
concerning particularly in light of the significant investment the 
American people have made in training Afghan counternarcotics forces.
    Please discuss your assessment of U.S. and NATO operations to stop 
the flow of opium and heroin.
    Answer. In 2009 year to date, the Afghan security forces supported 
by ISAF and USFOR-A have made progress interdicting the narcotics trade 
with respect to last year. Destruction of labs, seizures of drugs and 
precursor chemicals, and targeting of facilitators have increased. 
However, the full impact of these interdiction efforts is not yet 
known. Our multi-pronged approach to CN must include a comprehensive 
assessment process.
    Question. In March 2009, Iran, Afghanistan, and Pakistan carried 
out a joint counternarcotics operation. The operation was part of a 
U.N. initiative, called the Rainbow Strategy, aimed at getting the 
three countries to carry out joint patrols and share intelligence on 
the members of the drug trade that process opium poppy into heroin and 
smuggle the drug to markets in Europe. The NATO Secretary General has 
discussed his desire to boost these joint efforts to counteract the 
illegal drug trade and trans-border organized crime from Afghan 
territory.
    Please discuss your views on the possibility of NATO and U.S. 
opportunities to cooperate with Iran in countering the narcotics trade 
in Afghanistan.
    Answer. Counternarcotics in Central Asia is a regional problem. In 
addition to Afghanistan, the negative effects of the drug trade are 
felt in Iran and Pakistan. The United Nations Office on Drugs and Crime 
(UNODC) has cited the Iranians as being the most successful at 
interdiction in the region, seizing more than one-third of the opium 
smuggled out of Afghanistan through Iran (Source--UNODC report and 
recent comments by the UNODC Executive Director). These and other 
successful lessons could be shared between the Iranian and Afghan 
border security and law enforcement officials. This could be positive 
development and help improve stability in the region. As Commander, 
ISAF I would work through Afghan officials to find opportunities to 
support the Afghanistan's participation in this type of regional 
cooperation.
               mission focus of special operations forces
    Question. Some observers have contended that U.S. Special Forces 
operations and resources have been focused on ``direct action'' 
strategies aimed at killing or capturing insurgents, while foreign 
internal defense efforts emphasizing the protection of the Afghan 
people and training the Afghan security forces have taken a back seat.
    What do you believe should be the proper balance between U.S. 
Special Forces operations and resources committed to direct action 
versus foreign internal defense, including intelligence, force levels, 
and logistics?
    Answer. Striking the appropriate balance between direct and 
indirect actions is critical. SOF is often wrongly perceived as focused 
on direct action, when in fact a top priority role for SOF in 
Afghanistan has always been its foreign internal defense role in 
partnering and training ANSFs. SOF is one contributing element to that 
goal, along with CSTC-A and our international partners. We work ``by, 
with, and through'' the Afghan Government, because that is the only way 
to build necessary and sustainable capacity.
    Question. In your view, what should be the role of direct action 
operations in Afghanistan? Do you believe that direct action operations 
can defeat the Taliban?
    Answer. Disruption of terrorist and extremist groups relies in part 
on direct and focused counterterrorism actions. SOF units are trained 
and equipped to be the most lethal and precise operators in achieving 
this mission. Direct action remains an important aspect of disrupting 
our enemies, but it is neither the only role, nor the most important 
role, of SOF in Afghanistan. SOF is agile and adaptive, with unique 
skills in engaging indigenous and tribal groups, enabling our strategic 
communications through psychological operations, and targeting 
developmental and economic improvements through civil affairs officers. 
Direct action operations alone can not defeat the Taliban but is 
crucial to the overall COIN strategy.
    Question. Do you believe that U.S. Special Forces have enough 
experts in the foreign internal defense mission in Afghanistan and are 
being used fully to train Afghan security forces to protect the 
population and win ``hearts and minds''?
    Answer. By their very nature, SOF units are comparatively small in 
size and scope. They are specially trained to build and partner with 
indigenous security forces and to operate independently under austere 
conditions. We must optimize the limited SOF resources available to 
maximize their impact in theatre by ensuring that they are used for 
those activities that support our strategic priorities and capitalize 
on SOF specialties.
    In February 2009, a new one-star SOF command was established to 
plan and synchronize direct and indirect activities to achieve a 
balanced approach to COIN across Afghanistan.
    Combined Forces Special Operations Component Command Afghanistan 
(CFSOCC-A) operates at the strategic-operational level and brings 
important resources and capacity to efforts in Afghanistan. These 
include high-level strategic guidance, synchronization of SOF 
throughout the Afghan theatre, enhanced support to SOF units, liaison 
with ISAF, the U.S. Embassy, and other key elements of our national and 
international effort.
       reconstruction efforts and provincial reconstruction teams
    Question. If confirmed, what would be your role as Commander, ISAF, 
and COMUSFOR-A in reconstruction efforts in Afghanistan?
    Answer. I would work to establish an integrated ``whole of 
international community and whole of U.S. Government approach'' to 
reconstruction. I would work to establish comprehensive linkages 
between all lines of effort (security, governance, development, and 
strategic communications) the Government of Afghanistan, the 
Afghanistan National Development Strategy (ANDS) and the priorities of 
the Afghan people. I would ensure the efforts of our military forces 
are linked to those of the Afghan Government, UNAMA, USAID, other 
national development agencies, and NGOs. I would also work to ensure 
that our efforts are sustainable, meaning that they are Afghan led and 
maintained, and respond to Afghan priorities. This requires capacity 
building at all levels of the Afghan Government and must include 
constant engagement with local Afghan leaders and communities.
    Question. What is your assessment of the performance of the 
Provincial Reconstruction Teams (PRTs) in Afghanistan?
    Answer. I believe that the PRTs are of tremendous value and that 
they are making a difference across Afghanistan, many working with 
extremely limited resources. I'm aware that Congress legislated a 
report on measuring progress in the U.S. PRTs in the 2009 NDAA and that 
this report is still in final coordination within the interagency. I 
look forward to its submission in order to help us better refine 
measures of effectiveness. If I am confirmed, assessing PRTs is one of 
my highest priorities with the intent of determining how we can improve 
on a concept that has had some remarkable successes.
    Question. What improvements, if any, do you believe need to be made 
in the operations or coordination of the U.S. and NATO PRTs in 
Afghanistan?
    Answer. As outlined earlier, if confirmed I need to conduct an 
assessment. My current belief is that we need to improve collaboration 
among all stakeholders to better synchronize our collective efforts. 
This collaboration includes the PRTs, the United States and other 
partner embassies, the Government of Afghanistan, and international 
aid/development organizations. I believe the most immediate need is 
linking these capacity building efforts down to the local level in 
partnership with the increases in forces this year. These efforts must 
operate in parallel so that capacity building and development efforts 
can be executed as soon as clearing operations permit.
    Question. What improvements, if any, do you believe need to be made 
in the coordination of military and civilian efforts to provide 
reconstruction relief and development and to enhance the governance 
capacity of the Afghan Government?
    Answer. There is an ongoing effort within the interagency to 
increase the number of civilian experts to build capacity in governance 
and development. I am also aware that the international community, the 
Government of Afghanistan, and the interagency are currently looking at 
the overall requirements for increased civilian capacity from the 
national down to the local levels. We are working with the interagency 
on how best to support and employ these civilian experts on the ground. 
We will not succeed if all we do is establish security and a strong 
military and police. The most crucial component is to get international 
and U.S. civilian experts on the ground to improve capacity in 
governance and development where we've made gains in security.
                      national solidarity program
    Question. One program that contributes to enhancing development and 
empowering governance at the local level in Afghanistan is the National 
Solidarity Program (NSP). This program provides block grants directly 
to locally-elected Community Development Councils, which are 
responsible for identifying, planning and managing their own 
development projects. Funding for the NSP comes from the World Bank/
International Development Association, bilateral donors, and through 
the Afghanistan Reconstruction Trust Fund. According to its website, 
NSP has provided more than $500 million in payments to 21,000 Community 
Development Councils, which have financed more than 39,000 subprojects 
to improve access to infrastructure, markets, and services.
    What is your understanding of the value of NSP in Afghanistan?
    Answer. The Government of Afghanistan created the National 
Solidarity Program (NSP) to allow local populations to identify, plan, 
manage and monitor its own development projects. As an important means 
of promoting rural development, the NSP empowers rural communities to 
make livelihood-effecting decisions. Its goal is to reduce poverty by 
strengthening a national network of self-governing community 
institutions which plans and implements development projects against 
local priorities.
    The value of the NSP, as I understand it, is that it builds 
capacity at the community level and elevates and improves base 
competencies of local communities in financial management, procurement, 
technical skill, and transparency. Additionally, the Community 
Development Councils include and integrate women and other 
traditionally marginalized groups into the decisionmaking cycle at the 
local level. I believe its greatest value is that it strengthens 
society, empowers communities, and establishes trust and confidence in 
the government's ability to assist the people of Afghanistan.
    Question. Would you support expanding NSP as a means of building 
local governance and strengthening development?
    Answer. Yes, I would support expanding NSP as a means of building 
local governance and strengthening development, primarily because the 
Government of Afghanistan, as a sovereign nation, has implemented this 
initiative to address internal challenges. Since its inception in mid-
2003, the NSP has become the Government of Afghanistan's main 
instrument for restoring and reconstructing the village social and 
economic infrastructure and is operating (or being established in) 359 
of 364 districts and provincial centers throughout the 34 provinces in 
Afghanistan.
    One of the U.S. strategic objectives is to promote a more capable, 
accountable, and effective central government in Afghanistan that 
serves the Afghan people and can eventually function, particularly with 
regard to providing internal security, with limited international 
support. This program appears to be an effective method to help achieve 
that end.
                          civilian casualties
    Question. In your view, what can be done to reduce the levels of 
civilian casualties resulting from operations by coalition forces?
    Answer. In addition to the tragic loss of life, I am acutely aware 
of the negative repercussions resulting from civilian casualties. Any 
time an innocent person is killed our mission becomes harder and our 
men and women in Afghanistan fully understand this dynamic. We have 
procedures in place to make every effort to avoid civilian casualties 
because our purpose is to protect the population. However, we are 
fighting an enemy who conducts operations specifically designed to 
produce casualties that can be attributed to coalition forces. If 
confirmed, I intend to reiterate guidance on the use of force--
emphasizing the importance of not alienating the population--and to 
continue to review ways to avoid civilian casualties.
    Question. What more needs to be done to address the level of 
civilian casualties in Afghanistan?
    Answer. As stated above, if confirmed I intend to continually 
refine our ways to avoid civilian casualties. In the event that they do 
occur, I believe it essential to rapidly engage Afghan Government and 
local community leaders, make rapid compensation where appropriate and 
conduct joint investigations with Afghan authorities to ensure that the 
local population sees us as a responsible partner in their security and 
progress and that we have a common understanding of the events and how 
we can work together to avoid them.
                         treatment of detainees
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    If confirmed, will you take steps to ensure that all relevant 
Department of Defense directives, regulations, policies, practices, and 
procedures applicable to U.S. forces in Afghanistan fully comply with 
the requirements of section 1403 and with Common Article 3 of the 
Geneva Conventions?
    Answer. Yes, I will. The United States has treated, and will 
continue to treat enemy combatants humanely and, to the extent 
appropriate and consistent with military necessity, in a manner 
consistent with the principles of international law and Common Article 
3. They are provided with proper shelter and medical care. Each is 
allowed to exercise his religious beliefs, and is provided food 
consistent with his religious requirements.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. I do support the standards outlined in the documents you 
quote and I will ensure that we continue to operate a safe, humane, 
legal, transparent and professional enemy combatant detention operation 
that adheres to our obligations under U.S. and international law, and 
reflects the highest standards and values of the American people.
    U.S. policy requires that all detainees--at all times--be treated 
humanely and, to the extent appropriate and consistent with military 
necessity, in accordance with the principles of the Third Geneva 
Convention of 1949.
    Question. How would you ensure a climate that not only discourages 
the abuse of detainees, but that encourages the reporting of abuse?
    Answer. U.S. policy condemns and prohibits torture and abuse of 
detainees. U.S. personnel are required to follow this policy and 
applicable law. All credible allegations of illegal conduct by U.S. 
personnel will be taken seriously and investigated.
    Unfortunately criminal acts take place on the battlefield, just 
like they do in normal society. Fortunately, through improved training 
and education, substantiated allegations of abuse have decreased over 
time.
    When new allegations arise in the future, I will continue to hold 
individuals accountable, investigate fully, and take appropriate 
disciplinary action. I will ensure that all in my chain of command 
understand they have a duty to report suspected abuse.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    Are you familiar with these changes in detention operations for 
conducting counterinsurgency operations ``inside the wire''? If so, 
what do you consider to be the main lessons learned from the changes to 
detention operations in Iraq?
    Answer. The primary reason why we have been successful with 
``inside the wire'' detention operations over the last few years is 
because of your support with the large increase in resources made 
available for our detention operations. Over the past year, the 
Department of Defense has constructed a Theater Internment Facility 
Reintegration Center (TIFRIC), which incorporates a detainee work 
program to teach valuable, marketable skills to enable detainees to 
reintegrate into Iraqi society. We have used detention facilities to 
learn why Iraqis join the insurgency so that the insurgents can be 
rehabilitated and turned into allies instead of enemies. We segregated 
extremists, nurtured moderates, and ensured first-rate care and custody 
for every detainee. We set out to counteract the motivations to join al 
Qaeda or the insurgency--such as cash incentives and fears of 
reprisal--and provide detainees with an alternative.
    The TIFRIC and other detention facilities now provide rehab 
programs offering real skills and education like carpentry, textile 
manufacturing (sewing Bucca Bears and Cropper camels), painting, and 
limited use of automation, reinforced with moderate clerics messaging 
has made the difference. In addition our enhanced family visitation 
programs take advantage of the detainees' web of relatives, friends, 
and tribesmen who then also benefit from his rehabilitation.
    The critical first step in this successful program is to identify 
extremists and separate from moderates to enable rehabilitation of 
moderates and their eventual reintegration into society. We use 
military intelligence trained experts to analyze the detainee 
population and identify the radicals.
    Once separated from extremists, we empower and rehabilitate 
moderates through education, vocational training, and paid work 
programs to give them the incentive and means to reintegrate into 
society.
    Question. If confirmed, what steps would you take to incorporate 
those lessons learned into detention operations in Afghanistan?
    Answer. Although Afghan society is in many respects different than 
Iraqi society, I believe many of the lessons learned from conducting 
Iraqi detention operations can be applied to Afghanistan.
    If confirmed, I will establish, or where already in place, 
strengthen rehabilitation programs to:

        <bullet> Separate and segregate the extremists.
        <bullet> Develop a moderate understanding of Islam.
        <bullet> Impart basic education and vocational skills.
        <bullet> Continue family visitation and the use of extended 
        family members and tribal associations to aid in a released 
        detainee's abstention from violence.

    I will establish a new review process to determine more quickly 
which detainees do not pose a substantial threat to U.S. forces and can 
be released immediately
    I will work to provide increased transparency to media and 
international organizations, the Government of Afghanistan, the 
International Committee of the Red Cross, the U.N., and families so 
they can see at first hand the high standard of care, the humane 
conditions, and the rehabilitation programs in order to actively 
counter-act misperceptions and propaganda about our detention 
facilities.
    Finally, I will continue to provide care and custody with dignity 
and respect for every detainee with a guard force and staff dedicated 
to modeling and maintaining world class standards.
                        safe havens in pakistan
    Question. The Intelligence Community assesses that Pakistan's FATAs 
along the border with Afghanistan provide a safe haven for al Qaeda and 
other extremists supporting the Taliban-led insurgency in Afghanistan.
    What should be done to prevent cross-border incursions by al Qaeda 
and the Taliban from Pakistan into Afghanistan?
    Answer. Preventing all incursions is difficult due to the length 
and porous nature of the border. However, practical cooperation between 
Afghan, Pakistani, and international forces improves border security. 
Effective military operations in the Pakistani tribal areas are key to 
disrupt and eventually deny safe havens to al Qaeda and the Taliban 
from which to launch these incursions.
    ISAF and USFOR-A must continue to enhance the practical cooperation 
among ANSF, Pakistani military and international forces and increase 
the effectiveness of our counterinsurgency operations. Effective 
programs like Border and Joint Coordination Centers, regular tripartite 
engagements at all levels, and counterinsurgency training are essential 
to continued progress.
    Question. What role should ISAF forces play in countering this 
threat?
    Answer. ISAF operations are restricted to the country of 
Afghanistan. However, ISAF conducts extensive tripartite coordination 
at all levels from national command to local tactical units, which 
contribute to disrupting insurgents operating from safe havens in 
Pakistan. Despite political constraints from operating in Pakistan, 
ISAF should and is planning improvements in border security, ISR 
capacity, and tripartite coordination to interdict and disrupt cross-
border operations by insurgents based in Pakistan.
    Question. What role should the Afghan National Army play in 
preventing cross-border attacks by extremist militants from Pakistan 
into Afghanistan?
    Answer. The Afghan Border Police (ABP) have primary responsibility 
for border security. The Afghan National Army provides direct support 
and support in depth to the ABP. Operational Coordination Centers are 
currently being established at the Regional and Provincial levels to 
improve information sharing and synchronization of efforts.
    Question. In your view, should the Pakistan Government be doing 
more to prevent these incursions?
    Answer. The Pakistani military is currently conducting operations 
against extremist elements in Pakistan. We must continue to support 
their efforts, encourage operations in the tribal areas against 
insurgent safe havens, and persuade them to improve their military 
counterinsurgency capability.
                    afghanistan-pakistan cooperation
    Question. What is your assessment of the current level of 
cooperation between Afghanistan and Pakistan in confronting the threat 
of militant extremists in the border region?
    Answer. There are encouraging signs that the Pakistani Government's 
most recent efforts against extremists in Western Pakistan are, in 
part, facilitated by expanded cooperation with Afghanistan and 
international forces. This coordination has expanded at political and 
military levels and if confirmed, I will make every effort to maintain 
positive momentum.
    Question. If confirmed, what recommendations would you have for 
improving security cooperation between Afghanistan and Pakistan?
    Answer. I will continue to support the mechanisms we already have 
in place such as the Tripartite Commission, border security meetings, 
the Border and Joint Coordination Centers and other relationships that 
enhance the cooperation of all parties involved in this fight. I will 
also support other cooperative mechanisms where appropriate and the 
efforts of the international community to build regional security. More 
specifically, I would like to see an expansion in information and 
intelligence sharing; conduct pre-planned operations that are mutually 
supporting; and continue to build on the foundation of political 
cooperation which is maturing every day.
         sexual assault prevention and response in afghanistan
    Question. Numerous cases of sexual misconduct involving military 
personnel in Iraq, Kuwait, and Afghanistan have been reported over the 
last several years. Many victims and their advocates contend that they 
were victimized twice: first by attackers in their own ranks and then 
by unresponsive or inadequate military treatment. They assert that the 
Command failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their 
charges.
    What is your understanding of the resources and programs in place 
in Afghanistan to offer victims of sexual assault the medical, 
psychological, and legal help that they need?
    Answer. The military Services have primary responsibility to ensure 
sexual assault response personnel deployed to Afghanistan (Sexual 
Assault Response Coordinators, Victim Advocates, medical and mental 
health providers, and criminal investigation personnel) are well 
trained to support victims and investigate and respond to allegations 
of sexual assault. If resources are not readily available where the 
alleged incident occurred, victims are transported to a facility were 
there is appropriate victim advocate support, medical and psychological 
care (regardless of service) and investigative/legal support.
    I am aware that a number of recommendations were made to CENTCOM in 
the Department of Defense Fiscal Year 2008 Report on Sexual Assault in 
the Military, released in March. These included deploying Sexual 
Assault Response Coordinators and Victim Advocates and outfitting 
larger field hospitals with Sexual Assault Forensic Examination kits 
for evidence collection. Initial, independent Service responses to 
these recommendations may have created areas where duplicative support 
structures exist. In these instances, opportunities may exist to better 
pool and employ resources to optimize coverage and improve response. If 
confirmed, I will look more closely at available resources and find 
ways to improve support to sexual assault victims.
    Also, the Defense Task Force on Sexual Assault in the Military 
Services is currently evaluating how effectively the Services are 
implementing the DOD sexual assault policy and procedures. They 
interviewed key sexual assault responders currently deployed in 
Afghanistan, including chaplains, counselors, medical and legal 
personnel, and Criminal Investigations Division agents regarding how 
they handle cases of sexual assault. In addition, the Task Force has 
surveyed Sexual Assault Response Coordinators and Victim Advocates in 
Afghanistan regarding the level of resources and support they have, and 
regarding the effectiveness of restricted reporting in the deployed 
environment. Their findings and recommendations will be reported to 
Secretary of Defense later this year. If confirmed, I will ensure that 
all of the recommendations are considered for implementation within 
Afghanistan.
    Commanders at all levels must remain committed to eliminating 
sexual assault within our forces by sustaining robust prevention and 
response policies; by providing thorough and effective training to all 
assigned servicemembers, by identifying and eliminating barriers to 
reporting; and by ensuring care is available and accessible.
    Question. What is your view of steps the Command has taken to 
prevent sexual assaults in Afghanistan?
    Answer. If I am confirmed, I will need to assess this. I am aware 
that a congressionally mandated DOD Task Force on Sexual Assault is 
currently reviewing sexual assault to include an assessment of response 
capabilities in Afghanistan. I look forward to their report.
    Currently, it is my understanding that DOD policy guidance is in 
place in theater for the prevention of sexual assault which includes 
reporting procedures and command responsibilities. As we increase our 
presence in the area, I will ensure that our Sexual Assault resources 
are sufficient to respond to any incidents that may occur. But my 
primary objective will be to implement preventive measures through 
training and leadership involvement.
    Question. What is your view of the adequacy of the training and 
resources in Afghanistan to investigate and respond to allegations of 
sexual assault?
    Answer. The military Services have primary responsibility for the 
sexual assault response personnel deployed to Afghanistan to ensure 
they are well trained to investigate and respond to allegations of 
sexual assault. My expectation is that Sexual Assault Response 
Coordinators (SARCs) and Victim Advocates are designated for every 
operating area and are committed to providing the best care possible 
for deployed victims.
    Additionally, each of the military Services have identified 
investigative resources in deployed areas. However, as you may imagine, 
the combat environment and deployed operations are very dynamic. The 
investigative resources are often strained by other mission 
requirements. Access to resources may be complicated by remoteness of 
locations, availability of transportation to and from those areas or 
the level of ongoing operations. I believe the DOD training network in 
place now prepares them and investigators to handle sexual assault 
cases in a caring, responsive and professional manner. Our ability to 
respond and support victims is paramount.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. I believe current policies and procedures have improved 
care to victims of sexual assault. However, restricted reporting limits 
a commanders' ability to support the victim, investigate and/or hold 
alleged offenders accountable.
    Restricted reporting allows a sexual assault victim to 
confidentially receive medical treatment and counseling without 
triggering the official investigation process. Personnel may make a 
restricted report to the SARC, Victim Advocate or health care 
professional. Communications with chaplains also are confidential.
    Unrestricted reporting supports a sexual assault victim who desires 
medical treatment, counseling but also provides for official 
investigation of his or her allegations within existing administrative 
reporting channels (such as their chain of command, law enforcement or 
through the Sexual Assault Response Coordinator (SARC).
    Although the use of restricted, or confidential, reporting doesn't 
allow a commander to investigate alleged assaults, it does allow a 
sexual assault victim to confidentially receive medical treatment and 
counseling without triggering the official investigation process.
    As our military members' confidence in the reporting and 
investigative policies and procedures improve, I believe more alleged 
offenders can be held accountable. The greatest effect still lies in 
preventive measures and eliminating sexual assaults.
    Question. What problems, if any, are you aware of regarding the 
manner in which the confidential reporting procedures have been put 
into effect?
    Answer. In Afghanistan, I suspect that privacy for restricted and 
unrestricted reporting becomes a challenge in a deployed environment 
where units are small communities where accountability of personnel is 
a critical task for units. It becomes more difficult for the victim to 
reach out to the SARC or a victim advocate because of the need to keep 
track of all personnel movements within the theater and that support 
resources may not be co-located with the victim. The joint deployed 
environment could present additional difficulties in case management, 
delivering care and tracking services due to differences among Service 
programs. It is my understanding that the DOD Sexual Assault Prevention 
and Response Office is working to field a Joint Sexual Assault Database 
to improve our ability to communicate between the Services. The 
database is currently projected for fielding in 2010.
        mental health of servicemembers and stress on the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care to deal with this increased stress. The 
Chairman of the Joint Chiefs of Staff recently said that the shooting 
of five servicemembers at a stress control clinic by a troubled Army 
sergeant in Iraq speaks to ``the need . . . to redouble our efforts'' 
and ``the issue of multiple deployments'' and increasing dwell time 
``to try to improve to relieve that stress.'' This tragic incident, as 
well as increasing suicide rates in every Service, are clear reminders 
that servicemembers, particularly those who have been deployed multiple 
times, are under tremendous stress and need access to mental health 
care.
    In your view, are there sufficient mental health assets in theater 
to address the mental health needs of the military personnel who are 
serving in Afghanistan?
    Answer. Trying to assign a number or percentage of fill to define 
the sufficiency of assets does not accurately portray the complexity of 
the mental health issues or the individual needs of our forces on the 
ground as we continue to support operations in Afghanistan. I am aware 
of multiple efforts across the DOD that are looking at the issue of 
mental health assets in theater and most have shown that we need to 
have a change in both provider quantity and distribution, favoring 
increasing providers and stationing them closer to the line troops. 
Additionally, we must continue to evaluate and increase the 
availability of care for our servicemembers assigned to CSTC-A, who are 
traditionally not going to be co-located with or near our U.S. bases. I 
can assure you that I will work to make resilience training and mental 
health care available to every man and woman under my command and I 
will leave no stone unturned to get those capabilities to them as soon 
as possible. The DOD has made huge strides in our combat capabilities 
leveraging advanced technologies and I see no reason why we cannot 
bring those lessons learned into the medical and behavioral health 
arena, such as expanding our telemedicine capabilities to address the 
needs of our more remote outposts. Without a doubt, these issues will 
need to be handled with great care and respect for the sacrifices and 
incredible work of our brave men and women who deploy to this very 
challenging environment.
    Question. If confirmed, what actions will you take to address the 
mental health needs of military personnel serving in Afghanistan?
    Answer. First, let me say that the responsibility for the mental 
health and fitness of the forces under my command will fall on me and 
my subordinate commanders. This issue is not simply a medical matter 
but a complex topic that requires a team response and a coordinated 
effort. Commanders must set the right command climate, not only to 
remove the stigma of asking for and receiving care for psychological 
injury, but to build cohesive teams, recognize the need for prevention 
and identification of problems--as well as having the right resources 
in place when problems do arise. When behavioral health problems do 
surface, as they do in any population of human beings--not just in 
combat troops--we should be ready to address those. I am aware of the 
multiple efforts underway within the DOD to increase the number of 
behavioral health providers in theater. I support these efforts. In 
addition, it is critical to point out that mental health is not simply 
a numbers issue but an asset distribution issue as well. We need to 
make sure everybody gets taken care of and not just the people on the 
large bases. That means pushing behavioral health assets forward to 
embed with the line units; in other cases, it may involve leveraging 
our telecommunications assets to get to those very small and remote 
operating bases. If I have to make more bandwidth available to support 
those remote locations with mental health access then that is what I am 
going to do. In any case, I plan to look at the problem carefully and 
not simply go with the path of least resistance or most conventional 
choice--I'll do whatever it takes to maintain a fit and ready force 
both in body and spirit.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this position, to appear before this 
committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ISAF Commander/Commander, 
USFOR-A?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Susan Collins
                          afghanistan progress
    1. Senator Collins. General McChrystal, I have long advocated for a 
mechanism for measuring our progress in Afghanistan. The President has 
announced his strategy; however, it is still unclear just how we intend 
to measure success in Afghanistan. How do you intend to measure 
progress in Afghanistan?
    General McChrystal. I intend to use the core goal and objectives 
articulated in the President's strategy announced at the end of March 
as my guide for measuring progress in Afghanistan. Currently, under the 
lead of the National Security Council, work is being done through 
interagency policy coordination processes to develop benchmarks and 
metrics for measuring progress against the President's strategy for 
both Afghanistan and Pakistan. My responsibilities as the USFOR-A 
Commander requires me to provide input into that process through 
CENTCOM. I will ensure the metrics and benchmarks developed for 
Afghanistan measure progress with respect to the principles of 
counterinsurgency.

                 commanders emergency response program
    2. Senator Collins. General McChrystal, General Petraeus has stated 
Commanders Emergency Response Program (CERP) funds provide maximum 
capability to the U.S. mission in Afghanistan. These funds are used on 
reconstruction projects that build goodwill and presumably reduce the 
threat to U.S. forces. Do you believe that CERP funds should reside 
with DOD or the State Department? Who should have oversight of these 
funds?
    General McChrystal. The oversight of these funds should remain with 
DOD. The impact of the ability of the commander on the ground to use 
his discretion in allocating these funds to support local projects is 
vital. The credibility that it brings to our efforts to secure the 
population also pays huge dividends by establishing a sense of trust 
and loyalty which can often lend itself to developing important 
intelligence on insurgents in the area, which if verified and acted 
upon quickly, exponentially increases security for the population. The 
close relationship between our commanders on the ground and the PRT's 
allows for significant input from DoS on how and when the funds should 
be used.

                            taliban funding
    3. Senator Collins. General McChrystal, can you comment on what 
portion of the funding for the Taliban comes from wealthy individuals 
and ``charitable'' organizations in the Middle East versus narcotics?
    General McChrystal. Based on available information we can assess 
that both funding streams are major sources of significant and 
consistent levels of funds to the Taliban, and will continue to do so 
for the foreseeable future, based on the established networks specific 
to each source. We believe that targeting one source will not be enough 
to significantly disrupt the Taliban's ability to conduct operations.

                   north atlantic treaty organization
    4. Senator Collins. General McChrystal, we discussed the role of 
the North Atlantic Treaty Organization (NATO) during our meeting in my 
office last month. Do you think NATO will embrace the counterinsurgency 
strategy?
    General McChrystal. Militarily, I think in many ways NATO is 
already embracing the counterinsurgency (COIN) strategy through the 
various missions their forces, and those of our non-NATO partners, 
execute. At the same time, the political reality in NATO is such that 
the phrase `counterinsurgency' is problematic. During the Strausborg/
Kiel Summit in April, the NATO Heads of State and Governments (HOSGs) 
reaffirmed their commitment to Afghanistan with a Declaration, which 
included the following statement: `We will fill ISAF's military 
requirements and provide our commanders with the maximum possible 
operational flexibility for the use of our forces.' As the Commander, 
ISAF, I view that as an implied acceptance of the COIN mission, even as 
it avoids using that term. Within NATO there are on-going discussions 
about codifying the term `asymmetric warfare' to embody what we would 
consider COIN; should it be agreed upon, I would consider that a 
sufficient compromise.

    5. Senator Collins. General McChrystal, has any progress been made 
toward removing some of the rules of engagement (ROE) caveats that our 
NATO allies operate under?
    General McChrystal. In the past 6 months, there was a modest 
decrease in the number of total caveats reported by our allies and 
partners, from 76 to 69. Regarding ROE caveats, there are currently 26 
in place by 9 nations, mainly due to national laws and/or policies 
pertaining to the use of force and detention guidelines. As part of my 
initial assessment once in country, I will review the caveat list to 
look for potential areas where my staff can apply effort, as well as 
where NATO leadership can engage with capitals to lift or reduce 
caveats.
                                 ______
                                 
    [The nomination reference of LTG Stanley A. McChrystal, 
USA, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 18, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General.

    Lt. Gen. Stanley A. McChrystal, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Stanley A. McChrystal, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of LTG Stanley A. McChrystal, USA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
                                 ______
                                 
      Resume of Career Service for LTG Stanley A. McChrystal, USA
Source of commissioned service: USMA.

Educational degrees:
    United States Military Academy - BS - No Major.
    United States Naval War College - MA - National Security and 
Strategic Studies.
    Salve Regina University - MS - International Relations.

Military schools attended:
    Infantry Officer Basic and Advanced Courses.
    United States Naval Command and Staff College.
    Senior Service College Fellowship - Harvard University.

Foreign languages: Spanish.

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of Appointment
------------------------------------------------------------------------
2LT.......................................  June 2, 1976
1LT.......................................  June 2, 1978
CPT.......................................  August 1, 1980
MAJ.......................................  July 1, 1987
LTC.......................................  September 1, 1992
COL.......................................  September 1, 1996
BG........................................  January 1, 2001
MG........................................  May 1, 2004
LTG.......................................  February 16, 2006
------------------------------------------------------------------------


Assignment:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Nov. 1976                         Feb. 1978.........  Weapons Platoon
                                                       Leader, C
                                                       Company, 1st
                                                       Battalion, 504th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Feb. 1978                         July 1978.........  Rifle Platoon
                                                       Leader, C
                                                       Company, 1st
                                                       Battalion, 504th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
July 1978                         Nov. 1978.........  Executive Officer,
                                                       C Company, 1st
                                                       Battalion, 504th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Nov. 1978                         Apr. 1979.........  Student, Special
                                                       Forces Officer
                                                       Course, Special
                                                       Forces School,
                                                       Fort Bragg, NC
Apr. 1979                         June 1980.........  Commander,
                                                       Detachment A, A
                                                       Company, 1st
                                                       Battalion, 7th
                                                       Special Forces
                                                       Group (Airborne),
                                                       Fort Bragg, NC
June 1980                         Feb. 1981.........  Student, Infantry
                                                       Officer Advanced
                                                       Course, United
                                                       States Army
                                                       Infantry School,
                                                       Fort Benning, GA
Feb. 1981                         Mar. 1982.........  S-2/S-3
                                                       (Intelligence/
                                                       Operations),
                                                       United Nations
                                                       Command Support
                                                       Group-Joint
                                                       Security Area,
                                                       Korea
Mar. 1982                         Nov. 1982.........  Training Officer,
                                                       Directorate of
                                                       Plans and
                                                       Training, A
                                                       Company,
                                                       Headquarters
                                                       Command, Fort
                                                       Stewart, GA
Nov. 1982                         Sep. 1984.........  Commander, A
                                                       Company, 3d
                                                       Battalion, 19th
                                                       Infantry, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA
Sep. 1984                         Sep. 1985.........  S-3 (Operations),
                                                       3d Battalion,
                                                       19th Infantry,
                                                       24th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Stewart, GA
Sep. 1985                         Jan. 1986.........  Liaison Officer,
                                                       3d Battalion,
                                                       75th Ranger
                                                       Regiment, Fort
                                                       Benning, GA
Jan. 1986                         May 1987..........  Commander, A
                                                       Company, 3d
                                                       Battalion, 75th
                                                       Ranger Regiment,
                                                       Fort Benning, GA
May 1987                          Apr. 1988.........  Liaison Officer,
                                                       3d Battalion,
                                                       75th Ranger
                                                       Regiment, Fort
                                                       Benning, GA
Apr. 1988                         June 1989.........  S-3 (Operations),
                                                       3d Battalion,
                                                       75th Ranger
                                                       Regiment, Fort
                                                       Benning, GA
June 1989                         June 1990.........  Student, Command
                                                       and Staff Course,
                                                       United States
                                                       Naval War
                                                       College, Newport,
                                                       RI
June 1990                         Apr. 1993.........  Army Special
                                                       Operations Action
                                                       Officer, J-3,
                                                       Joint Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, NC, and
                                                       Operations Desert
                                                       Shield/Desert
                                                       Storm, Saudi
                                                       Arabia
Apr. 1993                         Nov. 1994.........  Commander, 2d
                                                       Battalion, 504th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Nov. 1994                         June 1996.........  Commander, 2d
                                                       Battalion, 75th
                                                       Ranger Regiment,
                                                       Fort Lewis, WA
June 1996                         June 1997.........  Senior Service
                                                       College
                                                       Fellowship, John
                                                       F. Kennedy School
                                                       of Government,
                                                       Harvard
                                                       University,
                                                       Cambridge, MA
June 1997                         Aug. 1999.........  Commander, 75th
                                                       Ranger Regiment,
                                                       Fort Benning, GA
Aug. 1999                         June 2000.........  Military Fellow,
                                                       Council on
                                                       Foreign
                                                       Relations, New
                                                       York, NY
June 2000                         June 2001.........  Assistant Division
                                                       Commander
                                                       (Operations), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC, to
                                                       include duty as
                                                       Commander,
                                                       Combined Joint
                                                       Task Force-
                                                       Kuwait, Camp
                                                       Doha, Kuwait
June 2001                         July 2002.........  Chief of Staff,
                                                       XVIII Airborne
                                                       Corps and Fort
                                                       Bragg, Fort
                                                       Bragg, NC, to
                                                       include duty as
                                                       Chief of Staff,
                                                       Combined Joint
                                                       Task Force-180,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
July 2002                         Sep. 2003.........  Vice Director for
                                                       Operations, J-3,
                                                       The Joint Staff,
                                                       Washington, DC
Sep. 2003                         Feb. 2006.........  Commanding
                                                       General, Joint
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, NC
Feb. 2006                         June 2008.........  Commander, Joint
                                                       Special
                                                       Operations
                                                       Command/
                                                       Commander, Joint
                                                       Special
                                                       Operations
                                                       Command Forward,
                                                       United States
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, NC
Aug. 2008                         Present             Director, The
                                                       Joint Staff,
                                                       Washington, DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
           Assignment                    Date                Grade
------------------------------------------------------------------------
S-2/S-3 (Intelligence/            Feb. 1981-Mar.      Captain
 Operations), United Nations       1982.
 Command Support Group-Joint
 Security Area, Korea.
Army Special Operations Action    June 1990-Apr.      Major/Lieutenant
 Officer, J-3, Joint Special       1992.               Colonel
 Operations Command, Fort Bragg,
 NC, and Operations Desert
 Shield/Desert Storm, Saudi
 Arabia.
Chief of Staff, XVIII Airborne    June 2001-July      Brigadier General
 Corps and Fort Bragg, Fort        2002.
 Bragg, NC, to include duty as
 Chief of Staff, Combined Joint
 Task Force-180, Operation
 Enduring Freedom, Afghanistan.
Vice Director for Operations, J-  July 2002-Sept.     Brigadier General
 3, The Joint Staff, Washington,   2003.
 DC.
Commanding General, Joint         Sept. 2003-Feb.     Brigadier General/
 Special Operations Command,       2006.               Major General
 Fort Bragg, NC.
Commander, Joint Special          Feb. 2006-June      Major General/
 Operations Command/Commander,     2008.               Lieutenant
 Joint Special Operations                              General
 Command Forward, United States
 Special Operations Command,
 Fort Bragg, NC.
Director, The Joint Staff,        Aug. 2008-Present   Lieutenant General
 Washington, DC.
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
           Assignment                    Date                Grade
------------------------------------------------------------------------
Army Special Operations Action    June 1990-Mar.      Major
 Officer, J-3, Joint Special       1991.
 Operations Command, Operations
 Desert Shield/Desert Storm,
 Saudi Arabia.
Commander, Combined Joint Task    Apr. 2001-June      Brigadier General
 Force-Kuwait, Camp Doha, Kuwait.  2001
Chief of Staff, Combined Joint    May 2002-July 2002  Brigadier General
 Task Force-180, Operation
 Enduring Freedom, Afghanistan.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal
    Expert Infantryman Badge
    Master Parachutist Badge
    Ranger Tab
    Special Forces Tab
    Joint Chiefs of Staff Identification Badge

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by LTG Stanley A. 
McChrystal, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Stanley A. McChrystal.

    2. Position to which nominated:
    Commander, International Security Assistance Force/Commander, 
United States Forces Afghanistan.

    3. Date of nomination:
    May 18, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 14, 1954; Fort Leavenworth, KS.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Annie McChrystal (Maiden name: Cocoran).

    7. Names and ages of children:
    Sam McChrystal, 25.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Stanley A. McChrystal.
    This 13th day of May, 2009.

    [The nomination of LTG Stanley A. McChrystal, USA, was 
reported to the Senate by Chairman Levin on June 9, 2009, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 10, 2009.]

                                     


 
NOMINATIONS OF GORDON S. HEDDELL TO BE INSPECTOR GENERAL, DEPARTMENT OF 
DEFENSE; DR. J. MICHAEL GILMORE TO BE DIRECTOR OF OPERATIONAL TEST AND 
EVALUATION, DEPARTMENT OF DEFENSE; ZACHARY J. LEMNIOS TO BE DIRECTOR OF 
  DEFENSE RESEARCH AND ENGINEERING; LT. GEN. DENNIS M. McCARTHY, USMC 
 (RET.) TO BE ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS; DR. 
JAMES M. MORIN TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR FINANCIAL 
  MANAGEMENT AND COMPTROLLER; AND DANIEL B. GINSBERG TO BE ASSISTANT 
      SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

                              ----------                              


                        THURSDAY, JUNE 11, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, McCain, Hagan, 
Begich, and Burris.
    Other Senators present: Senators Conrad and Leahy.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Richard W. Fieldhouse, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Roy F. 
Phillips, professional staff member; and Arun A. Seraphin, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Paul C. Hutton IV, professional staff member; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Paul J. Hubbard, Christine G. 
Lang, and Breon N. Wells.
    Committee members' assistants present: Gordon L. Peterson, 
assistant to Senator Webb; Roger Pena, assistant to Senator 
Hagan; and Jason Van Beek, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everyone. The committee meets 
today to consider the nominations of Gordon Heddell to be the 
Department of Defense (DOD) Inspector General (IG), Michael 
Gilmore to be Director of Operational Test and Evaluation 
(OT&E), Zachary Lemnios to be Director of Defense Research and 
Engineering (DDR&E), Dennis McCarthy to be Assistant Secretary 
of Defense for Reserve Affairs, Jamie Morin to be Assistant 
Secretary of the Air Force for Financial Management and 
Comptroller, and Daniel Ginsberg to be Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs.
    We welcome our nominees and their families to today's 
hearing. As senior defense officials put in long hours every 
day, we appreciate the sacrifices that they and their families 
are willing to make to serve our country.
    Each of our nominees has a distinguished background. Gordon 
Heddell has served in law enforcement positions since he 
completed his service as an Army helicopter pilot in December 
1969. In December 2000, Mr. Heddell was confirmed as IG of the 
Department of Labor, and in 2008 he became acting IG of DOD.
    The DOD IG plays a vital role in ensuring the integrity and 
efficiency of DOD programs and activities. If confirmed, Mr. 
Heddell will continue the job of restoring the reputation of 
this important office, which has been shaken in recent years. 
We need an IG that we can rely upon to dig into the 
department's problems, and to tell the truth about what he 
finds.
    Michael Gilmore has served in national security positions 
for the last 20 years, first in DOD's office of Program 
Analysis and Evaluation where he rose to be Deputy Director in 
2001, and more recently at the Congressional Budget Office 
where he has served for the past 8 years as Assistant Director 
for National Security.
    The Director of OT&E plays a key role in ensuring that our 
weapons systems perform as intended. The Director of OT&E, like 
the DOD IG, must be able to tell the truth to power. If 
confirmed, it will be Dr. Gilmore's job to tell DOD and 
Congress whether we have gotten what we paid for in our major 
defense acquisition programs. A successful Director of OT&E 
will not be popular within DOD, and plays a vitally important 
role in protecting both the troops and the taxpayers.
    Zachary Lemnios is a scientist and engineer who has spent 
most of the last 2 decades in various positions at the 
Massachusetts Institute of Technology's (MIT) Lincoln Lab where 
he now serves as chief technology officer. His qualifications 
are only enhanced by his status, and I say very proudly he is a 
graduate of the University of Michigan. If confirmed as DDR&E, 
Mr. Lemnios will be the top science and technology officer of 
DOD, responsible for guiding the advanced research that will 
keep our military ahead of its competitors for the next 
generation.
    In addition, the Weapon's System Acquisition Reform Act, 
which we enacted just last month, gives the DDR&E the important 
new responsibility of assessing the technological maturity of 
key technologies to be used in major defense acquisition 
programs to ensure that we won't try to build systems that we 
haven't sufficiently tested.
    I'm going to save my brief comments about the nominees on 
the second panel until we finish questioning the first panel. 
We do have one Senator, one of our colleagues who is here to 
introduce one of the nominees on the second panel, and we 
expect Senator Leahy, at any moment, to make an introduction 
for the second panel as well. Both our colleagues, who are 
great friends as well as colleagues, have other obligations and 
so we're going to take care of the introductions by those 
Senators who have nominees on both panels as soon as Senator 
McCain finishes his opening statement.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our nominees this morning, and I welcome their 
families as well. They will all play an important role in 
achieving the positions for which they are nominated, and as 
far as I can tell will certainly be confirmed by the U.S. 
Senate.
    They possess impressive backgrounds in both the public and 
private sectors. I consider all the nominees today to be well 
qualified for the positions for which they are being 
considered, and I thank them for their willingness to serve the 
Nation in these difficult times in the new administration. 
Without question, the position of DDR&E and Director of OT&E 
are key to maintaining superiority in technology, wisely 
spending billions of defense dollars for vital scientific 
research, and most importantly, in protecting and empowering 
our combat forces in the current fight.
    Dr. Gilmore and Mr. Lemnios, I look forward to hearing how 
you intend to make positive contributions in achieving these 
goals, and in helping to correct the Department's dismal record 
in weapons systems development.
    General McCarthy and Mr. Ginsberg, I know you'll appreciate 
that our national security has never been more dependent on the 
willingness of patriotic young men and women to voluntarily 
serve in the Armed Forces. It depends on the willingness of 
combat tested noncommissioned officers, officers, and their 
families to choose careers and continue serving. This is as 
true for active duty personnel as it is for members of the 
National Guard and Reserve. I look forward to hearing how you 
intend to improve the lives of our military personnel and their 
families.
    Mr. Heddell, there are very few positions in DOD that I 
consider to be more important than that of IG. Regrettably for 
several years, the Office of the DOD IG has been lacking in 
resources and talented leadership with predictable problems 
emerging in performance and morale. This has to change.
    I've expressed on numerous occasions my concern about 
corruption in government, and in DOD in particular. The 
contracting and procurement scandals in Iraq are one 
manifestation of this problem. The Department's troubled 
acquisition programs and the incentives that exist for 
individuals who know better than to abandon their principals to 
achieve an end are well known. The manner in which Congress, in 
a regrettable bipartisan fashion, has allowed the 
appropriations process to evolve has contributed greatly to 
these problems and presents one reason why Congress has such 
low grades in public opinion. The American people are fed up 
with the system that breeds corruption and will not continue to 
tolerate it.
    Transparency and knowledge of the truth are the antidotes 
to the corruption that is bred by earmarks and abuse of 
authority. The IG of DOD must be an independent leader in 
providing that transparency and knowledge, and I know we will 
receive that leadership from you.
    Dr. Morin, I view the DOD and the Service Comptrollers as 
individuals who can facilitate business as usual or make a very 
positive difference in the programs and policies of the 
Department. We face a number of challenges including enhancing 
the transparency of Air Force financial management activities, 
and improving acquisition processes. I trust you will advise 
the Air Force leadership accordingly to ensure that these 
issues are appropriately addressed. I again, welcome the 
witnesses and congratulate them, and look forward to working 
with them in the future. Thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Senator Levin. I join you in welcoming our nominees this 
morning.
    They possess impressive experience in both the public and private 
sectors. I consider all of the nominees today to be well qualified for 
the positions for which they are being considered, and I thank them for 
their willingness to serve in the new administration.
    Without question, the positions of Director of Defense Research and 
Engineering and Director of Operational Test and Evaluation are key to 
maintaining superiority in technology, wisely spending billions of 
Defense dollars for vital scientific research, and, most importantly, 
in protecting and empowering our combat forces in the current fight. 
Dr. Gilmore and Mr. Lemnios, I look forward to hearing how you intend 
to make positive contributions in achieving these goals and in helping 
to correct the Department's dismal record in weapons system 
development.
    General McCarthy and Mr. Ginsberg, I know you appreciate that our 
national security has never been more dependent on the willingness of 
patriotic young men and women to voluntarily serve in the Armed Forces. 
It depends on the willingness of combat-tested noncommissioned 
officers, officers, and their families to choose careers and continue 
serving. This is as true for active duty personnel as it is for members 
of the National Guard and Reserve. I look forward to hearing how you 
intend to improve the lives of our military personnel and their 
families.
    Mr. Heddell, there are few positions in the Department of Defense 
(DOD) I consider to be more important than that of the Inspector 
General. Regrettably, for several years the Office of the DOD Inspector 
General has been lacking in resources and talented leadership with 
predictable problems emerging in performance and morale. This has to 
change.
    I have expressed on numerous occasions my concern about corruption 
in government and in DOD in particular. The contracting and procurement 
scandals in Iraq are one manifestation of this problem. The 
Department's troubled acquisition programs and the incentives that 
exist for individuals who know better to abandon their principles to 
achieve an end are well known. The manner in which Congress in a 
regrettable bipartisan manner has allowed the appropriations process to 
evolve has contributed greatly to these problems and presents one 
reason why Congress has such low grades in public opinion. The American 
people are fed up with a system that breeds corruption and will not 
continue to tolerate it.
    Transparency and knowledge of the truth are the antidotes to the 
corruption that is bred by earmarks and abuse of authority. The 
Inspector General of DOD must be an independent leader in providing 
that that transparency and knowledge, and we expect that leadership 
from you.
    Dr. Morin, I view the DOD and the Service Comptrollers as 
individuals who can facilitate business as usual or make a very 
positive difference in the programs and policies of the Department. You 
face a number of challenges, including enhancing the transparency of 
Air Force financial management activities and improving acquisition 
processes. I trust you will advise Air Force leadership accordingly to 
ensure that these issues are appropriately addressed.

    Chairman Levin. Thank you so much, Senator McCain.
    Senator Kennedy if he were here would have been introducing 
Mr. Lemnios. He obviously is not with us, but he has asked that 
a statement of introduction be placed on the record. We are 
joined by two of our dear friends and colleagues. Senator 
Leahy, you're here I believe to introduce Mr. Ginsberg, and so 
we'll start with you, and then Senator Conrad to introduce Dr. 
Morin.
    [The prepared statement of Senator Kennedy follows:]
            Prepared Statement by Senator Edward M. Kennedy
    Mr. Chairman and Senator McCain, it is a privilege to have the 
honor to introduce Zachary J. Lemnios of Massachusetts Institute of 
Technology's Lincoln Laboratories who has been nominated to be Director 
of Defense Research and Engineering, and I commend President Obama and 
Secretary Gates for selecting him for this important position in the 
Department of Defense (DOD).
    Zach has a distinguished record of public service. He has broad and 
extensive experiences, and has a solid understanding and vision of the 
national security technology challenges facing DOD and the Nation.
    Most recently, Zach has been Chief Technology Officer at The 
Lincoln Laboratory, where he was responsible for developing, 
coordinating and overseeing the implementation of the Laboratory's 
strategy, including establishing relationships with DOD and reaching 
out to academic and industrial communities for technology innovation.
    In his impressive career, Zach has held major positions in the 
Defense Advanced Research Projects Agency, and has worked closely with 
DOD and the Intelligence Community. In recognition of his significant 
contributions to national security, he was awarded the Office of 
Secretary of Defense Medal for Exceptional Public Service.
    Zach's leadership in developing new defense technologies has 
significantly benefited our military systems, and has also 
significantly strengthened the Nation's industrial technology base.
    I'm confident that Zach will carry out his responsibilities as 
Director of Defense Research and Engineering with the same skill and 
dedication that he has brought to his past assignments. I urge the 
committee and the Senate to act quickly on his nomination, so that Zach 
can begin working to implement the provisions of the Weapon Systems 
Acquisition Reform Act, recently signed by the President, and help us 
meet the major technology challenges facing DOD in protecting our 
national security. Thank you Mr. Chairman.

STATEMENT OF HON. PATRICK J. LEAHY, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. Thank you, Senator 
McCain.
    It's somewhat unusual to be on this side of the table, but 
I'm glad to see so many friends here. I just wanted to be here 
to express my strong support for Daniel Ginsberg. He has been 
nominated by the President to be Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs, and I welcome he and 
his wife Jessica, his parents, Rhonda and Jerry, and other 
family members who are here with him today.
    Daniel had worked for former Senator Sam Nunn, and for the 
past 9 years has served as my Defense Policy Adviser. He has 
been fantastic in that area. We've had an emphasis on the Guard 
and Reserves because as the two of you know better than anyone 
in this room, they have become a keystone for our military 
operations, particularly in Iraq and Afghanistan. The support 
for homeland duties has been at all time high, everything from 
natural disasters such as Katrina to floods and fires and so 
on, as well as Homeland Security. We've done some updated 
policies for them. We have a 95 member U.S. Senate National 
Guard caucus. I co-chair that with Senator Kit Bond of 
Missouri. It has worked in a, I was going to say a bipartisan 
fashion, actually a nonpartisan fashion, and Daniel Ginsberg as 
my senior adviser helped coordinate the caucus and develop 
detailed legislation and far-reaching strategies that enacted 
strong changes expeditiously. At a time when we've had 
increasing interparty rank on the Hill, he forged a bipartisan 
consensus and the need to better support the efforts of the 
Guard and in turn the Reserves. He worked with the General and 
the Governors of the State, so I'll put my full statement in 
the record praising him, but I just want to say that it's a 
bittersweet moment for me. I have benefited so much from 
Daniel's work in my office. I joked a couple weeks ago when I 
was in Afghanistan, Iraq, and Pakistan, something the two of 
you have done so many times, and I joked that I was going to 
put a hold on his nomination until that trip was over because 
I, so vitally, needed him, and it was just emphasized one more 
time as he met with generals, ambassadors, and leaders of 
coalition forces. His depth of knowledge, his breadth of 
knowledge, and his caring for the United States of America. Mr. 
Chairman, I can't think of a better person to fill this 
position. With that I'll put my full statement on the record.
    [The prepared statement of Senator Leahy follows:]
              Prepared Statement by Senator Patrick Leahy
    Mr. Chairman, I am pleased to be with you this morning to express 
my strong support for Daniel Ginsberg who has been nominated by 
President Obama to be Assistant Secretary of the Air Force for Manpower 
and Reserve Affairs. I want to welcome his wife Jessica, parents Rona 
and Jerry, and other family members who are here with him today.
    For the past 9 years, Daniel has served as my defense policy 
advisor and has excelled in his duties, particularly in the area of 
manpower and reserve affairs issues.
    Over the past decade, our country has relied on our Guard and 
Reserves more than any other time in recent history. Reservists became 
a keystone to our military operations, particularly in Iraq and 
Afghanistan, and stepped forward repeatedly to answer the call-to-duty 
at a tempo not seen in decades. At the same time, the Guard and Reserve 
support for homeland duties was at an all time high. The Guard has 
provided crucial support to our Governors and states during natural 
disasters such as Katrina. In addition the Guard has assumed additional 
roles in homeland security as our country adopted new policies after 
the attacks on September 11, 2001.
    This new era for the Guard and Reserves prompted Congress and the 
Department of Defense to review many existing and frankly outdated 
policies for this part of our Armed Forces. The 95-member U.S. Senate 
National Guard Caucus, which I co-chair along with Senator Kit Bond of 
Missouri, played an integral role in that review and implementation of 
new policies. It was Daniel Ginsberg who helped coordinate the Caucus' 
successful efforts in this area.
    As my senior advisor, Daniel helped me develop detailed legislation 
and design the far-reaching strategies that would enact these changes 
expeditiously. At a time of increasing inter-party rancor on the Hill, 
we forged a bipartisan, bicameral consensus on the need to better 
support the efforts of the Guard and, in turn, the Reserves. He has 
helped the Caucus achieve an unheralded relationship with the Nation's 
Governors and the Adjutants General, bringing in key leaders at every 
stage of the legislative process.
    This is a bittersweet appearance for me today. While I am glad to 
support this nomination, I am disappointed that it will result in the 
departure of such a fine individual from my policy staff. President 
Obama and Secretary Gates will be well served by Daniel. I hope the 
committee will report this nomination favorably and that the full 
Senate will soon send the nomination to the President.

    Chairman Levin. Thank you so much, Senator Leahy. We really 
appreciate your getting here today for that introduction. I 
know that Mr. Ginsberg does as well. Now for Jamie Morin, I 
think I pronounced his name correctly. We'll call upon Senator 
Conrad.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM THE STATE OF 
                          NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman and Ranking Member 
McCain. Thank you so much for your very positive statement. We 
appreciate that very much. Senator Hagan, Senator Begich.
    I'm here to strongly support the nomination of Dr. Jamie 
Morin to be the Assistant Secretary of the Air Force for 
Financial Management. Many of you know Jamie because he has 
been the Senior Defense Analyst on the Budget Committee since 
2003, very well regarded on both sides of the aisle. He really 
is an exceptional nominee, and has an absolutely encyclopedic 
knowledge of military affairs. His mom, Bridgette who is with 
us here today, told me this morning that at age four Jamie was 
looking in the encyclopedia reading about the military 
services, and that he has had an interest and a devotion to 
military matters ever since. That's probably why he has such an 
extraordinary knowledge of military affairs, an intense 
interest in that subject.
    More than that, he has good judgment, really exceptional 
judgment, and that will serve him well in this position. He 
also has a very strong academic background, a Ph.D. from Yale, 
M.S. from the London School of Economics. He has a B.S. in 
foreign service from Georgetown. A very good background for the 
position he'll be moving into. He also, I might add, has a 
strong devotion and interest in the United States Air Force. I 
know members of this committee are aware that we have two major 
Air Force bases in North Dakota, and he has followed the Air 
Force very closely during his entire career.
    I believe the Obama administration is extremely fortunate 
to be able to track somebody of Dr. Morin's character and 
quality. He is absolutely first rate. He served the Committee 
on Budget well. I believe he served the country well, and I 
believe we're fortunate to have people of his ability come 
forward and be willing to serve in public service. With that, 
I'll put my full statement in the record, and I thank you very, 
very much for listening.
    [The prepared statement of Senator Conrad follows:]
               Prepared Statement by Senator Kent Conrad
    Mr. Chairman, members of the committee, I come here today to offer 
my full backing to President Obama's nomination of Dr. Jamie Morin to 
serve as the next Assistant Secretary of the Air Force for Financial 
Management.
    Many of you already know Jamie quite well from his work as the 
Senior Defense Analyst for the Senate Budget Committee, where he has 
served since 2003. He has always provided outstanding analysis and 
guidance on defense budget issues.
    Without question, Jamie is an extraordinary nominee. His 
encyclopedic knowledge of military issues, keen judgment, and 
collegiality have been of great benefit to me as chairman, to the 
Committee as a whole, and to our country. Jamie's background in 
academia has also prepared him well for this position. In researching 
and writing as a fellow at the University of Virginia and at the Center 
for Strategic and Budgetary Assessments, and while earning his Ph.D. at 
Yale, Jamie proved his ability to pore over data and interpret it in a 
meaningful way.
    In these tough economic times, responsible budgeting is more 
important than ever. The Obama administration is extremely fortunate to 
attract someone of Jamie Morin's quality and character to such a 
critical post. The American people are fortunate to have someone of his 
talent willing to continue in public service. I believe that Jamie is 
the perfect fit for this position. He has repeatedly demonstrated the 
experience, judgment, and character necessary to be an extremely 
successful Assistant Secretary. I fully support his nomination and urge 
the committee and the full Senate to act quickly to confirm his 
nomination.

    Chairman Levin. Thank you very much, Senator Conrad. Thank 
you for leaving for me the choice tidbit that Dr. Morin went to 
high school in Detroit, graduated at the University of Detroit 
High School, is a Michigan native. I appreciate you allowing me 
to make that important significant addition.
    Senator Conrad. Also you know Mr. Chairman, as a Senator 
from North Dakota, I have not spent a lot of time talking to my 
constituents about his checkered background.
    Chairman Levin. Well, in that case you're not excused. I 
think you need to stay here for the additional questions. 
Thanks so much for coming.
    Okay. We now will call our first panel forward, please. We 
ask you first, each of you to answer the following questions. 
These are standard questions we ask of all nominees that come 
before us.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Dr. Gilmore. Yes.
    Mr. Heddell. Yes.
    Mr. Lemnios. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Gilmore. No.
    Mr. Heddell. No.
    Mr. Lemnios. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications including 
questions for the record and hearings?
    Dr. Gilmore. Yes.
    Mr. Heddell. Yes.
    Mr. Lemnios. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Gilmore. Yes.
    Mr. Heddell. Yes.
    Mr. Lemnios. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Gilmore. Yes.
    Mr. Heddell. Yes.
    Mr. Lemnios. Yes.
    Chairman Levin. Do you agree if confirmed to appear and 
testify upon request before this committee?
    Dr. Gilmore. Yes.
    Mr. Heddell. Yes.
    Mr. Lemnios. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding any of the basis for 
any good faith delay or denial in providing such documents?
    Dr. Gilmore. Yes.
    Mr. Heddell. Yes.
    Mr. Lemnios. Yes.
    Chairman Levin. Thank you very much. I think we'll call 
first on Mr. Heddell, and the other witnesses and nominees can, 
of course, be free to introduce any family or guests that you 
might have if they are with you. Mr. Heddell.
    Mr. Heddell. Thank you, sir. I have an opening statement. 
May I do that?
    Chairman Levin. Please.

    STATEMENT OF GORDON S. HEDDELL, NOMINEE TO BE INSPECTOR 
                 GENERAL, DEPARTMENT OF DEFENSE

    Mr. Heddell. Chairman Levin, Senator McCain, distinguished 
members of the Senate Armed Services Committee, I am honored to 
appear before you today as the nominee to serve as the DOD IG.
    Being nominated for this position is a remarkable 
opportunity, and I am prepared to meet the challenges ahead, if 
confirmed. The responsibility of this position is of great 
importance to ensure the health, the safety, and the welfare of 
DOD personnel, and to make sure that the taxpayer receives a 
good return on their investment. As an IG with over 8 years 
experience, I know that the DOD IG has exceptional 
responsibility. I am committed to ensuring that this office of 
IG serves as a model of integrity and dedicated service as well 
as a highly respected organization. If confirmed, I will accept 
the duties of the office with appreciation, humility, and a 
commitment to doing what is right while always honoring the 
principal of independence. I am truly grateful for the support 
and partnership of this committee and Secretary Gates in 
ensuring that there is effective oversight of the department.
    On a personal note, I want to acknowledge the love and 
support of my family who have truly been the inspiration behind 
any successes that I have had in my life or in my career. I 
thank you, Mr. Chairman and members of this committee, for your 
time and attention. I look forward to answering your questions.
    Chairman Levin. Thank you very much, Mr. Heddell.
    Dr. Gilmore.

STATEMENT OF DR. J. MICHAEL GILMORE, NOMINEE TO BE DIRECTOR OF 
      OPERATION TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Dr. Gilmore. Mr. Chairman, Senator McCain, members of the 
committee it's an honor to appear here today. I thank President 
Obama for having the confidence in me to nominate me to be 
Director of OT&E in DOD, and I thank Secretary Gates for 
supporting that nomination.
    My wife, Ai-Chi Liu, is here today, and suffice it to say 
that without her support and encouragement, I would not be here 
today.
    Mr. Chairman, I believe that the Weapons Systems 
Acquisition Reform Act that the President recently signed into 
law demonstrates his commitment, as well as DOD's to working 
with Congress, and in particular with this committee to solve 
the many problems that have arisen in developing, producing, 
and fielding weapons systems. If I am confirmed, I pledge that 
I'll do my best to help that important effort, and I'll do that 
by providing this committee, the Secretary, and Congress with 
independent objective evaluations of the effectiveness, 
suitability, and survivability of weapons systems based on 
realistic operational testing. My goal would be to ensure that 
the men and women in uniform are provided weapons that they can 
be confident will work. Thank you.
    Chairman Levin. Thank you so much, Dr. Gilmore.
    Finally Zachary Lemnios. Mr. Lemnios.

  STATEMENT OF ZACHARY J. LEMNIOS, NOMINEE TO BE DIRECTOR OF 
                DEFENSE RESEARCH AND ENGINEERING

    Mr. Lemnios. Thank you, Mr. Chairman, Senator McCain, and 
members of the committee.
    I'm honored by the opportunity to appear before you today 
as the President's nominee for the position of DDR&E. I'd like 
to thank my wife, Stephanie, who is with me today, and my 
children, Melanie, Grace, Sarah, and Jonathan. My parents, 
William and Angela, are watching on the committee's webcast. 
They are my foundation, and I could not have considered this 
opportunity without their love and support.
    In fact, public service is deeply routed in our family. My 
wife Stephanie works at a nonprofit organization, Science Club 
for Girls, inspiring young girls to be in appreciation of 
science and technology. My brother, Phil, was in the Peace Corp 
for several years in Africa, later became the town manager of 
Hull, MA. My daughter, Grace is a special education teacher in 
Woodbridge, VA, not too far from here. I'd like to recognize my 
father's service to the Nation as an 18-year-old private first 
class and later sergeant in the 20th Army Division, his unit 
fought across Europe during World War II. On April 29, 1945, 
his was one of three U.S. Army Divisions that took part in the 
liberation of the Dekalb Concentration Camp.
    My career is focused on opening new technology frontiers to 
guarantee our Nation's advantage over those who threaten us. I 
have seen the power of invention and innovation firsthand, and 
have had the opportunity to participate in opening new fields 
of study in industry, academia, and the Federal Government. 
Rapidly evolving technology such as robotics, cognitive, bio, 
and nanotechnologies will have profound implications for our 
country to go well beyond our understanding today. We simply 
must lead in these and other critical areas to ensure our 
national security.
    The Department of Science and Technology Investment serve 
three critical functions in my view. First they preserve the 
technological age of our current forces by extending the 
capabilities of our current war fighting systems. They offer 
the opportunity for breakthrough capabilities allowing us to 
chose those capabilities on our timelines, and finally they 
provide a hedge against the uncertain future with a set of 
scientific and engineering options to counter-strategic 
surprise. For the 21st century, the most critical capabilities 
that defense, science and technology can deliver to the war 
fighter and to the American taxpayer would be systems that can 
adapt to changing applications and environments, systems that 
scale flexibly with demand, and capabilities that react faster 
than our adversaries with minimal support and logistics. We 
simply owe it to our soldiers, sailors, airmen, and marines to 
rapidly accelerate those breakthroughs from the laboratory to 
the field. I fully support the important accusation elements 
outlined in the Weapons System Acquisition Reform Act of 2009 
draft by this committee, and recently signed by the President.
    A renewed focus on systems engineering and more frequent 
technology assessments will significantly reduce program risk, 
and the cost of major defense acquisition programs. If 
confirmed, I look forward to working across the Department, and 
with this committee and others to strengthen our core 
competencies to deliver state of the art capabilities to our 
forces on time and within budget.
    In closing, I want to thank again the President for 
nominating me, the Secretary of Defense for his support, and to 
this committee for your time today. I'm honored to be before 
you, and if confirmed, I look forward to working with this 
committee and your staff, and I look forward to your questions.
    Chairman Levin. Thank you so much, Mr. Lemnios. Why don't 
we try an 8-minute first round of questioning for this panel. 
We do have two panels.
    First Mr. Heddell, let me ask you about the DOD IG report 
on the use of retired military officers as surrogates to make 
the former administration's case in the media. The report was 
totally inadequate, and 4 months after it was released the IG 
withdrew this report noting that the report was using 
inaccurate and incomplete data, did not meet the accepted 
quality standards for an IG work product, but you as the acting 
IG also stated that the additional investigative work will not 
be taken to reissue a new report, and that raises the question 
as given all the flaws in the withdrawn report why not redo it.
    Mr. Heddell. Sir, I do currently have a review ongoing, and 
two of the points of that review have to determine what 
findings we can, in fact, report back to you and this committee 
on, and also for the future, what judgments we could make about 
such a program. So, in spite of the feeling that we may not be 
able to redo that investigation because people that manage that 
program are no longer in positions at the Department, and 
because certain members of the retired military analyst group 
would not allow themselves to be interviewed, as well as other 
former DOD officials, it's difficult if not impossible to 
provide the answers that you have asked for. However, I'm 
committed to meeting the request that you have made of me to 
determine what I can determine from that report. I think it's 
an important review, and I have committed to you to get back to 
you on that, and to tell you what I think we can about that 
program.
    Chairman Levin. I appreciate that answer. First of all you 
have certain limits obviously. The IG doesn't have subpoena 
powers, and that is a limitation which needs to be addressed. 
We're going to use this situation where you are not getting the 
cooperation of people who you must talk to as the example that 
we're going to take one of them to the Homeland Security and 
Governmental Affairs Committee, where I also serve, that has 
the responsibility generically relative to the powers of the 
IGs because we can't permit an IG to be thwarted by the failure 
to have access to documents and to people.
    So does the lack of subpoena power apply both to documents 
and to people, or just to people?
    Mr. Heddell. The IG has the authority to subpoena documents 
but not testimony.
    Chairman Levin. All right. So we're going to take this 
shortfall to the other committee that has jurisdiction, but in 
the meantime this committee has power to subpoena, and we are 
going to support our IG. So if there are people who need to be 
subpoenaed for testimony in order to get their information, who 
refuse to show up voluntarily, we would appreciate your 
notifying them that you again request their testimony, and if 
not, that you would make a request for this committee to hold a 
hearing where we will subpoena them to a hearing of the 
committee. Hopefully if the committee will issue a subpoena, 
which we hope it would in support of our IG. Will you do that?
    Mr. Heddell. You have my commitment to do that, sir.
    Chairman Levin. Thank you. There's another report which is 
due, overdue actually for 3 years now, and that's the IG's 
review of allegations that senior Air Force officials had 
improperly steered contracts for publicity in connection with 
Thunderbird air shows, and that they had allegedly steered 
those contacts to friends and insiders. The DOD IG concluded 
this investigation and issued a report early last year. The 
report raised serious questions about the role played by senior 
Air Force officials, but the report avoided making any findings 
or recommendations with regard to the conduct of the senior 
officials.
    So Senator McCain and I sent a letter to the then IG more 
than a year ago asking that he review the conduct of current 
and former senior Air Force officials named in the report. Not 
only possible improper conduct, criminal conduct theoretically 
or possibly, but also for possible ethical violations and 
failures of leadership and provide specific findings and 
recommendations to the Secretary of the Air Force and to the 
committee. These allegations have been out there for 3 years. 
The review has still not been completed apparently, and my 
question, Mr. Heddell is when can we expect to see a completed 
report on this matter?
    Mr. Heddell. Sir, that's one of the top senior official 
investigations that I'm reviewing. I believe that we can give 
you relatively good assurance that within 4 weeks we will have 
a report to you.
    Chairman Levin. Thank you.
    Dr. Gilmore, let me ask you a question relative to the 
independence of the office to which you've been nominated, 
which is so critical, and you made reference to it in your 
opening statement.
    How will you ensure the independence of that office, 
particularly if you're challenged by DOD officials or 
contractors?
    Dr. Gilmore. By exercising leadership, Senator. I think 
that the key to maintaining independence is having a director 
who is willing to be straightforward in their assessments to 
both the Secretary and Congress, and that is what I would be. I 
would provide you the best information that I could if I were 
confirmed, about the performance of these systems.
    Chairman Levin. One question relative to the test and 
evaluation that's occurred of the ground-based midcourse 
defense system, which is a missile defense system, you're very 
familiar with this. The Director of OT&E reported to us last 
December that the ground-based midcourse defense system, the 
flight testing to date will not support a high degree of 
confidence in its limited capabilities. Do you believe that 
it's important that our ballistic missile defense (BMD) systems 
and its elements like other systems should undergo OT&E, and 
that any elements to be deployed should be operationally 
effective, suitable, and survivable?
    Dr. Gilmore. Yes, sir, I do. I think the information on 
that is required for operational decisionmakers to make proper 
decisions about how to employ the systems.
    Chairman Levin. Mr. Lemnios, I believe you're a graduate of 
the University of Michigan, and I'm tempted to ask you how that 
training and experience qualifies you for the office for which 
you've been nominated, but I'm going to resist temptation 
because I may assure my vote but lose a few others around here, 
so I'm not going to do that, but you've been appointed to, or 
nominated to an extraordinarily important position. You're 
going to have responsibility for the departments of science and 
technology programs which play such a critical role in helping 
the United States maintain the advantage over competitors and 
adversaries, current and potential adversaries around the 
world.
    The department's 2010 budget request reduces funding for 
these accounts by nearly 10 percent relative to the 2009 
request, and I'm just wondering whether that concerns you as to 
whether we are adequately investing in the research and 
engineering programs that are essential to develop new 
capabilities, and to help train the next generation of 
scientists and systems engineers to work on our problems.
    Mr. Lemnios. Mr. Chairman, first of all, it was a delight 
to go to the University of Michigan in Ann Arbor. I'm now at 
the MIT in Cambridge. It's a different institution but, in 
fact, these schools and many others have an enormous impact in 
training scientists and engineers, and a whole quandrant of 
people who will serve our Nation in very important areas.
    I fully support the President's 2010 budget as submitted, 
and certainly in my role if confirmed, the critical part of 
that is shaping the science and technology portfolio that is 
shaped over the near-term and long-term requirements of the 
department, and takes in opportunities to invest in whatever 
technologies that come out of the universities and many other 
areas to support our warfighting needs.
    Chairman Levin. Okay. My time is up.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. I want to welcome 
all of you gentlemen here today, and I certainly want to say 
welcome to your families and especially your wives for being 
here because I know how critical and important your support is, 
so I thank each and every one of you.
    Mr. Lemnios, I had one question for you. I'm impressed with 
your credentials, and I think that it's a very important role 
that you bring to DOD. I think that science and cutting edge 
technology is absolutely critical in our weapons systems and 
our security. I think that in your comments you stated that 
research and engineering is the first step in the overall 
acquisition process. I'm concerned about two particular issues, 
and one is the continued threat of improvised explosive devices 
(IEDs) that are killing and maiming our troops, I wanted to 
know your comments, and what you think from a technological 
standpoint we can do, I know we've done a lot, but I think that 
it's still a huge threat. What you see in the future about 
that, and then taking it another step further with cyberspace 
and cyber protection is also a very critical element in 
protecting the country today, and some comments that you might 
have on that.
    Mr. Lemnios. Senator, those are two very important issues 
that are very high on the priority list of the current research 
portfolio of the department. The IED threat has been a 
particularly troublesome one to date. The number of military 
folks that have been killed or wounded is enormous, and it 
concerns all of us. The initial response was to try to build a 
set of capabilities to improve force protection. There are 
technologies involved in that, and those have found their way 
into the field. The next response was to try to build systems 
that would help counter the triggering mechanisms of the IED, 
and those have also found their way into the field, but at a 
tempo perhaps not at the same rate that they're being 
developed, and that's a concern as well. The third piece, the 
one that's really sort of in the science and technology regime 
is to try to understand the entire chain or events that occurs, 
not just in building the IED and deploying it, but what are the 
precursors up front that could be detected. In fact, there's a 
rich research community that's working through that to try to 
identify those and transition those, and in fact, organizations 
like the Joint IED Defeat Office, the Armory Rapid Equipping 
Force, the Air Force Rapid Capability Office, all of those are 
working to quickly transition those concepts to field.
    With regard to cyberspace, I read the Cyber Policy Review 
that was issued by the White House about 2 weeks ago. It was a 
policy review, and there's a compendium of technology 
underpinnings that support those policy positions. That's an 
area that I think we're going to need to learn a lot. There's a 
community that's understanding what the threat is. The Defense 
Advanced Research Projects Agency is standing up a national 
cyber test range. There are other ranges that exist that will 
allow us to test techniques, to protect networks, and protect 
information on those networks. I see both of those areas, both 
the IED threat as it emerges, and certainly the cyber threat, 
as we're better understanding that threat, are both important 
areas to couple with the research community.
    Chairman Levin. Senator, I wonder if I can just interrupt 
you for a minute because of your interest in the IED. I was 
with a bunch of Michigan National Guardsmen and there was a 
colonel there who actually was in Iraq with his unit deployed, 
out in a vehicle and they thought they saw an IED on the road, 
and they actually thought they saw the people who were trying 
to control it on top of a building, sent out a robot to that 
IED and watched the robot actually dismantle an IED. So we talk 
a lot about science and new technologies, that was an example 
where he actually saw it, was in the vehicle that would have 
been hit by that IED. I want to thank you for raising this 
question. It has been a major concern, and I appreciate it, and 
your time will not be deducted by my intrusion here.
    Senator Hagan. You certainly have that pleasure. Thank you.
    Mr. Heddell, I had a question for you concerning the 
contracting companies. A few weeks ago, I attended a policy 
committee hearing that was chaired by Senator Dorgan. Senator 
Dorgan examined $83 million in bonuses that was paid by DOD to 
the contractor Kellog, Brown, & Root (KBR) in 2007 and 2008 
despite this company's poor electrical work in Iraq, which 
resulted in the deaths of at least three U.S. soldiers killed 
by electrocution while showering, and then others who have been 
injured or killed in other electrical incidents. Witnesses at 
the hearing described how KBR failed to hire qualified 
personnel, how they performed electrical work in a matter that 
continues to place our troops in danger, and failed to make 
repairs once the hazards were identified. Moreover, an 
electrical inspector that was hired by the U.S. Army to review 
the U.S. run facilities in Iraq indicated that 90 percent of 
KBR's wiring in the newly constructed buildings in Iraq was not 
properly done. But despite all these concerns, KBR was awarded 
a $35 million contract earlier this year for a project in Iraq 
that included electrical work.
    My question is, can you comment on the status of this 
investigation as well as explain how you propose to work with 
the Department of the Army and other departments to ensure that 
they have qualified personnel to oversee the contract 
management, especially regarding the services performed in 
theater in support of our troops.
    Mr. Heddell. Yes, Senator Hagan. I appreciate that 
question. It's an extremely important issue to the Office of 
IG. We've been working on the issue of accidental electrocution 
since April or May of last year. The most prominent case that 
you're referring to involved Sergeant Ryan Maseth who died 
while taking a shower on January 2, 2008, and that was the 
catalyst for beginning to take a look at this entire situation. 
We are very close to completing our work regarding how that 
could have happened to Sergeant Maseth as well as an additional 
17 other accidental electrocutions that have occurred. We have 
had teams working in southwest Asia, both Iraq and also in 
Afghanistan, to work with the commanders to determine whether 
or not the lessons that we have learned are being passed on to 
them. We don't believe that this is an area that anyone should 
wait for a final report; it's too critical. So we, in fact, 
sent a team to Afghanistan just a few months ago to see what 
was happening over there to hopefully preempt any kinds of 
issues. So we're getting ahead of the game. We're finding that 
the commanders are responding. They're taking great steps to 
conduct inspections for safety, both from electrical and fire 
hazards, but there's a lot more to do. So the report that 
you're asking about should be out within 4 weeks. We have 
actually three reports. One is on Sergeant Maseth's death, the 
other is on the other 17 electrical accidents, and the third 
one is on electrical status and safety in Afghanistan.
    Senator Hagan. Do you feel that it is more secure today 
than it was in recent past?
    Mr. Heddell. We see improvements, Senator Hagan, but 
there's still a long way to go. I personally visited the 
building in the Radwaniyah Palace Complex where Sergeant Maseth 
died. I looked at the shower. I went up on the roof to see 
where the generator was that had not been properly grounded, 
and the reason I point that out is because it was made clear to 
me that this is a tremendous challenge for our commanders. 
These are buildings that were in existence before 2003. They 
were wired using different electrical codes and standards than 
we use in this country, and so we are in a very dangerous, very 
hazardous environment, but commanders are taking steps to 
conduct inspections. In one case in Afghanistan they bought 
containers to house 300 troops because they were in hazardous 
housing at the time. It's a hazardous environment no matter how 
you look at it, but I think it has certainly improved over the 
last 6 to 9 months.
    Senator Hagan. It's definitely hazardous, but you certainly 
hope nobody is electrocuted while taking a shower, obviously.
    Mr. Heddell. Of course we hope that, but we still have a 
ways to go to give assurance to this committee or to anyone 
that our troops are 100 percent safe from those kinds of 
hazards.
    Senator Hagan. I'm sure you'll get right on that.
    Mr. Heddell. Yes, ma'am.
    Senator Hagan. Thank you.
    Chairman Levin. Thank you Senator Hagan.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to ask you all a few questions, and 
I do want to echo the comments by the other Senators that thank 
you for your willingness to serve, but also thank you to the 
families and the support team that you have to support you 
through this process as well as in your service. Thank you for 
doing that.
    My questions are for Dr. Gilmore. I just want to read 
something from your testimony just to reiterate a point to make 
sure it's still consistent here, and let me just read it if I 
could. Modeling and simulation can contribute to the assessment 
of system performance, particularly to explore the full range 
system operations or live open air testing would be unsafe or 
impractical. Model simulation is also useful as a tool to help 
plan the test program. However, model simulation should be 
utilized to compliment rather than replace operational testing 
in a realistic environment. Additionally, sufficient 
operational testing should still be performed to adequately 
validate and accredit any models used. Assuming that was in 
your written testimony, you still agree with that.
    Dr. Gilmore. Yes, sir.
    Senator Begich. Acknowledge that?
    Dr. Gilmore. I wouldn't have written it if I didn't think 
it was correct.
    Senator Begich. I just wanted to make sure. I appreciate 
the Chairman's question regarding operational testing, 
especially on the ground-based, Ground Missile Defense (GMD) 
System. The reason I wanted to restate that, and again I 
appreciate the chairman's question because you emphasized the 
point operational testing is important in order to make any 
system reliable. In regards to the GMD System, from the 
information in the discussions that we've had with the Missile 
Defense Agency the briefings that we have had, based on the 
budget and what they're proposing in 4 years, the actual live 
testing will cease, and they will move to simulation as the way 
they believe, or at least they've stated to us that they will 
maintain readiness and reliability, but that seems inconsistent 
with your comments, the two should compliment each other. Can 
you comment on that?
    Dr. Gilmore. I'm not aware of the specifics of this plan 
they're developing, and I hadn't heard of what you just said, 
but I would reiterate that modeling and simulation are 
important as a compliment to actual testing.
    In the case of the GMD system, it's clear that modeling and 
simulation will be needed because live testing isn't going to 
be able to explore all of the potential modes of operation of 
the system in the real word. But again, those models and those 
simulations have to be verified, validated, and accredited by 
using operational tests that explore as much of that 
environment as is possible.
    Senator Begich. I appreciate that because, to be frank with 
you, I think anyone who comes in front of this committee have 
brought up the GMD System, and simulation by itself. Modeling 
you've reconfirmed it is not the only way you do testing or the 
only way you consider reliability but to compliment each other, 
and you have emphasized it again.
    Let me ask, in your advanced questions you state rigorous 
testing and robust program flight testing, ground testing 
should be conducted on the GMD System. How do you describe 
that, because right now they have planned two missiles, two 
tests a year, and the question that I have is that enough? If 
it's enough, is it because we have limitations in the capacity 
to do the testing beyond two per year, or is the system just 
designed to do no more than two. That's adequate for testing of 
this system to ensure it's reliability, and improving its 
efficiency which I know I was in Fairbanks about 10 days ago or 
so with Secretary Gates reviewing the GMD, and he made the 
comment that he believes the system is fairly accurate, but 
robust testing is necessary. So how do you define robust 
testing?
    Dr. Gilmore. Robust testing is the testing that's needed to 
provide operators with a high confidence that they understand 
what the system will do and will not do, and exactly what that 
means is something that I would expect to be involved in if I'm 
confirmed in the context of GMD. But there needs to be a 
sufficient number of tests, open air tests, live tests as well 
as the use of verified, validated, and accredited models in 
order to generate high confidence that if you use the system, 
you understand what it will do. If you rely on it, that's an 
appropriate thing to do.
    Senator Begich. If I can just probe a little bit further. 
You may not be able to answer this right now, and maybe a 
little more time might give you some thought on it. Is two 
tests a year, live tests adequate?
    Dr. Gilmore. That is obviously something that I would look 
into.
    Senator Begich. Okay.
    Dr. Gilmore. There would be a total number of tests that 
are required, accomplished over what ever period of time they 
can be accomplished over. I think that another ingredient here 
is what's realistic in terms of accomplishing testing given the 
problems that they've had, particularly with the targets. But 
to look at what the total number of tests are that would be 
required, and to determine what a reasonable schedule is for 
conducting those tests given the situation that exists with 
respect to the targets program as well as all the other 
ingredients that flow into the test program, is something I 
would obviously be very involved in if I were confirmed.
    Senator Begich. I appreciate that. Let me ask one more, and 
I apologize to the other two. Maybe you appreciate that I'm not 
asking you questions, I don't know.
    How will you, if appointed to this position, again OT&E is 
very important to the systems that we have. How will you deal 
with the conflicts that might occur when a budget constraint is 
put on you in regards to testing? From your experience, 
professionalism, and knowledge of the necessity of testing, 
live testing is important to ensure the reliability of the 
systems. How will you deal with that conflict internally?
    Dr. Gilmore. I would inform the Under Secretary for 
Acquisition, the Secretary, and Congress in testimony if it was 
requested what my view was regarding the adequacy of the test 
program, and what budget constraints would mean with regard to 
the adequacy of the test program.
    Senator Begich. I appreciate that. I know sometimes as a 
former mayor and executive, we always had folks as we moved up 
the budgets and got to Home B, Home B was its own world and 
decided certain things, and then something would pop and 
operationally sometimes it would not be exactly what the 
operational people would want. So I appreciate your candor 
there, and I'm looking forward to your confirmation, but also 
as we deal with the GMD how do we ensure that we continually 
have the robust testing and inventory. My concern is that based 
on the current budget we have been presented, that robust 
testing will be very limited because of the production line and 
the budget constraints that are now in place with regards to 
additional missiles that will be utilized for testing. So I 
look forward to your candor in that arena in committee or in 
meetings, and so again thank you for your willingness to answer 
the questions.
    To the other two I have no questions for you, so you are 
relieved of any list I might have created while I was sitting 
here thinking, but thank you very much for your testimony. I 
appreciate your candor.
    Chairman Levin. Thank you, Senator Begich, and if you have 
second thoughts about questions for the other two witnesses, 
you can provide those for the record so you don't leave them 
out. I know they have a sense of loss of not being asked 
questions by any of us.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. I express my 
sentiments as well as my colleagues to these three 
distinguished Americans who are willing to serve. Certainly I 
express my thanks to their families for going along with them 
and serving, and to Mr. Heddell who is currently in the 
position as Acting IG.
    Are any of you other gentleman familiar with the 
responsibility, Mr. Lemnios or Dr. Gilmore that you're going 
into now, or do you have any experience in the position that 
you're going to right now?
    Mr. Lemnios. Senator Burris, I certainly don't have any 
experience in the position. I certainly have had discussions 
with the former DDR&E, and many technology leaders across the 
defense science and technology activities.
    Senator Burris. What have you been doing? Are you still in 
your current position now, or in are you in limbo now waiting 
to get confirmed?
    Mr. Lemnios. Senator, I'm currently the Chief Technology 
Officer of MIT Lincoln Laboratory. We are a federally funded 
research and development (R&D) center, and in that role I 
interact with many universities, including the University of 
Michigan.
    Senator Burris. How about the University of Illinois 
(UofI)?
    Mr. Lemnios. The UofI. I know UofI very well.
    Senator Burris. Your colleague to the right has also 
attended the UofI in Springfield.
    How about you, Dr. Gilmore?
    Dr. Gilmore. No, I have not served in this position before, 
but I believe that my previous experience in government and the 
things that I have done, and my technical training prepares me 
well for it. Yes, I agree it will be a very challenging 
position.
    Senator Burris. Mr. Heddell, you're currently in the 
position now as Acting IG. So how long have you been in that 
role, for over a year? You didn't come up for confirmation in 
the previous administration, or what was the circumstances 
surrounding that?
    Mr. Heddell. The previous IG, who was Senate confirmed, 
left that position unexpectedly. This was on July 13, and I 
became the Acting IG on July 14 to serve in an interim 
capacity, and during that process I was asked to consider 
staying longer in that position.
    Senator Burris. Mr. Lemnios, could you explain to me in 
terms of the research and engineering are you overseeing 
outsourcing contracts with universities and all the research, 
or do you have a staff that's also doing the research and the 
engineering over these weapons systems? Just give me a brief 
explanation of how that works.
    Mr. Lemnios. Sir, in my current position, or if confirmed?
    Senator Burris. If confirmed.
    Mr. Lemnios. Sir, as DDR&E, my critical role would be to 
work technology strategy across DOD, to identify those key 
areas where the department needs to strengthen and drive its 
technology strategies and technology efforts.
    Senator Burris. Excuse me. You're saying that the various 
Services have their own research laboratories going with 
research military personnel, or outside contracting personnel?
    Mr. Lemnios. I've seen combinations of both. Some examples 
include the Naval Research Laboratory not too far from here, 
which include certainly government employees as well as some 
contractors on site. The Air Force Wright Patterson Laboratory, 
which again include many government researchers and outside 
contractors.
    Senator Burris. So all those people there would report to 
you, is that correct?
    Mr. Lemnios. Sir, the laboratories report up through the 
Service structure, and the DDR&E establishes a technology 
portfolio across the department in concert with a service 
executive across the department.
    Senator Burris. Is there any outside contracting that is 
done? Do you have to oversee, award any contract for this 
project, or would the DOD be taking bids on that?
    Mr. Lemnios. Senator, my understanding is that the DDR&E is 
a direct source selection authority for those contracts, but 
there would certainly be activities across the department that 
rely upon the technical strategies that we put in place.
    Senator Burris. To your knowledge there are contacts that 
are awarded, but you would not have jurisdiction or interest 
over those contracts?
    Mr. Lemnios. I wouldn't have direct jurisdiction, direct 
source selection authority.
    Senator Burris. Same to you, Dr. Gilmore, in terms of tests 
and evaluation. Do you know whether or not the testing is done 
primarily with military and staff personnel, or are the weapons 
systems and all other various devices awarded out for testing 
to those contract awards?
    Dr. Gilmore. Operational testing is done in an 
operationally realistic environment by government personnel 
using people who would actually have to use the equipment in 
the field.
    Senator Burris. I'm sorry?
    Dr. Gilmore. The testing that is done, the operational 
testing, is done by government personnel using government 
facilities and using military people, the military people who 
would actually have to use the equipment in the field. 
Otherwise, it would not be operationally realistic.
    Senator Burris. So you're not using outside contracts for 
operational testing?
    Dr. Gilmore. Not for operational testing.
    Senator Burris. Thank you very much, Mr. Chairman. I 
appreciate it.
    Chairman Levin. Thank you very much, Senator Burris.
    Just another question or two for you, Mr. Lemnios. First we 
worked hard to increase the department's participation in the 
development of new energy technologies as well as making the 
department an early adopter of new technology such as solar 
cells, biofuels, and hybrid engines. What is your view of the 
role that DOD should play in energy research and the adoption 
of new energy technologies?
    Mr. Lemnios. Senator, there are broad challenges across the 
department and elsewhere to quickly draw innovations that are 
coming out of the private sector and out of the research 
community into problem sets that the department could quickly 
adapt. I've seen early examples of this that have worked very 
well. The Army recently completed with the DDR&E a challenge 
problem that brought many small businesses together to try to 
identify new technologies for providing power to the dismounted 
solider in very small form factor. This would have an enormous 
impact in the logistic supply in providing power for soldiers 
without increased weight. The private sector has a big role in 
this area, and I think one of the ways that the department can 
leverage this is to strengthen those interactions with the 
private sector. Certainly the National Aeronautics and Space 
Administration Research Laboratories, in particular the 
laboratory in Cleveland has a strong research base in solar and 
high performance energy systems. The department should and, in 
fact does, couple with these other laboratories.
    Chairman Levin. The DOD labs are precious resources for us. 
One of those world class labs or facilities is the Tank 
Automotive Command Research, Development, and Engineering 
Center (TARDEC) outside of Detroit. The vehicle R&D for 
military is focused at that facility. It's part of the tank and 
automotive command Detroit arsenal. I'd like to get you up 
there to visit, and a good time to do that would be soon after 
your confirmation. We expect to be breaking ground on the new 
energy lab that is going to be opening up at TARDEC, but this 
is where our military vehicles and research are developed. 
Where energy for them is researched and new energy sources 
tested, and your reference to working with the private sector--
there's a real synergy between the military vehicle research 
and the research on commercial vehicles in the private sector 
nearby. The General Motors tech center is nearby. Ford's 
research facility, Chrysler's research facility, and there's a 
lot of joint development of technologies going on, not just 
between TARDEC and those three entities and those three 
institutions, but also a lot of other places around Michigan 
and the country that they work with. So, we will be trying 
after you're confirmed to get you up there for that particular 
important moment when that energy lab has the ground broken or 
for some other purpose. I assume that getting back to Michigan 
would be something you would look forward to.
    Mr. Lemnios. Sir, I would, and I would also point out that 
I visited TARDEC about a month ago, we're building a robotics 
activity through TARDEC as an implementer. I previously stated 
that, earlier in my career, I had spent a lot of time at the 
Ford research laboratories in Dearborn. I know that facility 
very well, so I look forward to that.
    Chairman Levin. That would be great.
    Any other questions we have. Senator Burris all set?
    Senator Burris. All set.
    Chairman Levin. Okay. We will excuse you. We thank again 
you and your families, your support teams for getting you here, 
supporting you in the future which they will be called upon to 
do, and we congratulate you. We look forward to a speedy 
confirmation. Thank you all.
    We'll now move to our second panel of nominees. First, 
Dennis McCarthy retired as Lieutenant General in 2005 after a 
distinguished career in the Marine Corp Reserves. Since that 
time he has served as Executive Director of the Reserve 
Officers Association (ROA) of the United States. If confirmed, 
General McCarthy will play a leading role in addressing the 
challenges and stresses facing the National Guard and Reserves 
at a time when we're relying heavily on our Reserve elements to 
support ongoing military operations in Iraq and Afghanistan.
    Jamie Morin is a Michigan native who graduated from the 
University of Detroit (UofD) Jesuit High School before leaving 
Michigan to attend such lesser institutions as Yale, 
Georgetown, London School of Economics. It was all downhill 
from UofD I know. He served since 2003 as a professional staff 
member on the Senate Budget Committee where he has been the 
committee's lead analyst for the Defense Intelligence and 
Foreign Affairs Budgets. We know him best for his role in 
helping to enforce the budget rules.
    When our bill is on the Senate floor, we're not going to 
hold that against you, I want you to know, Dr. Morin.
    Dr. Morin. Thank you.
    Chairman Levin. We will miss the patience, and the good 
humor, and the thoughtfullness that Jamie has always shown in 
working with us, but we're confident that DOD is going to 
benefit in equal measure from your service.
    Daniel Ginsberg has served as a legislative assistant to 
Senator Patrick Leahy, as we've heard, since 1999. He has 
assisted Senator Leahy in his work on the Defense Appropriation 
Subcommittee, and is co-chair of the Senate National Guard 
Caucus. Some of us still remember that before joining Senator 
Leahy, Danny served as a research assistant here in the Senate 
Armed Services Committee. I believe also that he is a music 
critic, and I have a hunch that if some of the people whom 
you've written critical reviews about had a chance to vote on 
your confirmation that you might not be confirmed.
    Mr. Ginsberg. I'm glad some of them don't have a vote, Sir.
    Chairman Levin. Classical music buff, that is something 
which is a relevant addition to your vitae I want you to know.
    I congratulate all of the witnesses on their nominations. 
We look forward to your testimony, and when we call upon you 
you'll be free if you have family members with you to introduce 
them. Let me start before I call on you for any opening 
statements to ask you the standard questions which some of you 
have heard before.
    Have you adhered to the applicable laws and regulations 
governing conflicts of interest?
    General McCarthy. Yes.
    Dr. Morin. Yes.
    Mr. Ginsberg. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Morin. No.
    Mr. Ginsberg. No.
    General McCarthy. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications 
including questions for the record and hearings?
    Dr. Morin. Yes.
    Mr. Ginsberg. Yes.
    General McCarthy. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Morin. Yes.
    Mr. Ginsberg. Yes.
    General McCarthy. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Morin. Yes.
    Mr. Ginsberg. Yes.
    General McCarthy. Yes.
    Chairman Levin. Do you agree if confirmed to appear and 
testify upon request before this committee?
    Dr. Morin. Yes.
    Mr. Ginsberg. Yes.
    General McCarthy. Yes.
    Chairman Levin. Do you agree to provide documents including 
copies of electronic forms of communication in a timely manner 
when requested by a duly constituted committee, or to consult 
with the committee regarding the basis for any good faith delay 
or denial in providing such documents?
    Dr. Morin. Yes.
    Mr. Ginsberg. Yes.
    General McCarthy. Yes.
    Chairman Levin. Thank you, and I think General McCarthy 
we're going to start with you.

STATEMENT OF LT. GEN. DENNIS M. McCARTHY, USMC (RET.), NOMINEE 
    TO BE ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS

    General McCarthy. Thank you, Mr. Chairman. I would say to 
Senator McCain and to all the members of the committee it goes 
without saying that I'm honored and humbled to be sitting here 
this morning. I'm extremely appreciative of the confidence the 
President has expressed by nominating me to be an Assistant 
Secretary of Defense for Reserve Affairs, and now to the 
Secretary of Defense for supporting that nomination.
    When I took off my uniform in 2005, I did not expect ever 
to be in this position again, but I will tell you without 
hesitation that I'm extremely pleased that I may have another 
opportunity to serve. It's especially meaningful to me to have 
that opportunity come in the area of Reserve Affairs. Not only 
has much of my military service been connected with the Reserve 
components, but my wife Rosemary and I are the proud parents of 
two Reserve component families.
    Our son Sean is a captain in the Ohio National Guard. He 
and his wife Theresa and their three children live the life of 
the citizen warrior in Columbus, OH, where Sean is also an 
Assistant County Prosecutor.
    Our son Michael is a Major in the Marine Corp Reserve. 
After a number of years on active duty he left to attend law 
school, and he's now working on Capitol Hill for a year as a 
legislative fellow, but in short order he and his wife Brittany 
will be living back in Ohio balancing their time between their 
commitments to the civilian community and his to the Marine 
Corps. Having lived that life myself, and watching these two 
great families live it today is all the inspiration I will need 
to focus my energies on the demands and opportunities of this 
office if I'm confirmed.
    I'm very thankful to have Rosemary, Sean, Michael, and 
Brittany here with me today. Theresa is at home in Columbus 
doing what the mother of three young children has to do.
    As the committee knows very well, the All-Volunteer Force 
could not have fought the sustained combat of the last 8 years 
without the augmentation and reinforcement of over 700,000 men 
and women of the National Guard and Reserve. If the Senate sees 
fit to confirm me, I'll commit myself entirely to the service 
of those great men and women, to their families, and their 
employers, and to all those who will follow them. Again, I 
thank you and I will do my best to respond to your questions.
    Chairman Levin. Thank you so much, General. Next I think 
we'll call on you, Jamie. Dr. Morin.

   STATEMENT OF DR. JAMES M. MORIN, NOMINEE TO BE ASSISTANT 
    SECRETARY OF THE AIR FORCE FOR FINANCIAL MANAGEMENT AND 
                          COMPTROLLER

    Dr. Morin. Thank you, Chairman Levin. I'm delighted to be 
here before the Armed Services Committee today, and I would ask 
if I could give you a full statement for the record, and 
compress it.
    Chairman Levin. That would be fine, thank you. It will be 
made part of the record.
    Dr. Morin. Thank you for the opportunity to appear. I'm 
grateful for the confidence that President Obama has placed in 
me by nominating me for this position as Assistant Secretary 
and Chief Financial Officer for the Air Force. It's a real 
challenge, and it will require the work and support of my 
family and friends. I'm grateful to have here today my mother, 
Bridget Morin and my son Liam, and I'm also very grateful for 
the support and love of my wife Megan who has lived the life of 
the Senate staff spouse, the sort of unpredictable schedule and 
challenges that poses, and has balanced that with her own 
career in public service.
    Chairman Levin. I tell my wife the spouse life is a 
glamorous life. She laughs every time I try it.
    Dr. Morin. I haven't had much luck with that either, sir. I 
also want to thank Senator Conrad for the very generous, overly 
generous introduction he offered this morning. I can promise 
the committee that if I am confirmed I will seek to follow his 
example as a very faithful steward of the taxpayer's resources.
    Chairman Levin. There is no better example that I know of.
    Dr. Morin. As a participant in a minor level in the defense 
budgeting process, and as a former scholar of the defense 
budgeting process, I deeply understand the challenges that DOD 
faces both in matching resources to the many claimants, and 
also building financial systems and business systems that 
adequately take care of the taxpayer's resources.
    Senator McCain said this morning, and I'll take this as a 
charge, that business as usual is not acceptable. I believe 
that very firmly. The department has a goal of achieving a 
clean audit opinion by 2017. Even though that is, in many 
people's estimations and many expert's estimation, perhaps 
unachievable. It is not satisfactory for the public to have 
that sort of level of responsiveness. So I will take this 
responsibility very seriously if I'm confirmed, and I look 
forward to a rich dialogue with the committee, this committee 
that I've had such pleasure working with and have such respect 
for. Thank you.
    [The prepared statement of Dr. Morin follows:]
                 Prepared Statement by Dr. Jamie Morin
    Chairman Levin, Senator McCain, members of the Armed Services 
Committee--I am delighted to come before the committee today as the 
President's nominee for Assistant Secretary of the Air Force for 
Financial Management. Thank you for the opportunity to appear.
    I am grateful for the confidence that President Obama has shown in 
me by nominating me to be the Air Force's Chief Financial Officer, as 
well as the support of Secretaries Gates and Donley. If your committee 
and the Senate consent, I would be honored to serve in that position.
    I also wanted to thank Senator Conrad for his introduction today. 
He has been a tremendous mentor. I will always be grateful for his 
willingness to pluck me from the halls of academia and give me the 
opportunity to work for the Budget Committee for the last 6 years. I 
can promise the Armed Services Committee that if confirmed, I will seek 
to follow Senator Conrad's example as a careful steward of the 
taxpayer's resources.
    I am glad to have family members here to support me today. My 4-
year-old son, Liam, is in the audience today, along with my mother 
Bridget Morin, who was able to come in from Michigan to be here. I 
appreciate their love and support.
    I especially want to thank my wife, Megan, who has put up with the 
uncertainty and chaotic schedule that comes with a spouse working in 
the Senate while pursuing her own demanding career in public service.
    The responsibilities of the Air Force Comptroller are serious ones. 
As a former scholar of the defense budget process, I am well aware of 
the challenges the Comptroller faces in developing the budget during a 
time when our troops are in harm's way and the Nation faces huge 
deficits. Like almost all of the Department of Defense, the Air Force 
has a challenging road ahead, providing Congress and the Nation with a 
clean accounting for taxpayer funds.
    If I am confirmed as Air Force Comptroller, my top priority will be 
to ensure that our Airmen get the resources they need while also 
improving the Air Force's financial management to protect the taxpayers 
hard-earned dollars. Only by improving the transparency and fidelity of 
the Department's financial processes can we ensure that senior 
leadership can make the best possible decisions about prioritization 
among military requirements.
    Additionally, if I am confirmed I am committed to working closely 
with Congress to make sure that our military needs are clearly 
articulated and that the defense committees have all the information 
they need to exercise their role in authorizing and appropriating funds 
for Air Force activities. As someone who studied the role of Congress 
in the defense budget process as an academic and now a minor 
participant for the last several years, I have a real appreciation for 
the role of this committee and Congress as a whole.
    In closing, I would like to again thank President Obama, Secretary 
Gates, and Secretary Donley for selecting me. If confirmed, I will make 
every effort to live up to the confidence they have placed in me.

    Chairman Levin. Thank you so much, Dr. Morin.
    Mr. Ginsberg.

   STATEMENT OF DANIEL B. GINSBERG, NOMINEE TO BE ASSISTANT 
  SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Ginsberg. Thank you, Mr. Chairman, Ranking Member 
McCain, and members of the committee. I have a full statement 
that I would ask to be included in the record.
    Chairman Levin. It will be.
    Mr. Ginsberg. It is a deep honor for me to sit before you 
as President Obama's nominee to serve as the Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs. 
One of my most significant early work experiences was to serve 
on the committee staff during the chairmanship of former 
Senator Sam Nunn, who is one of my great mentors and heroes. I 
have seen what a critical role the committee plays in caring 
for our men and women in uniform.
    I would like to introduce my lovely wife Jessica Rose, and 
my wonderful parents Jerry and Mona Ginsberg. I owe them a debt 
of gratitude I can never repay. I also thank my mother-in-law 
Marilyn Coleman and my sister-in-law Jennifer Rose for being 
here.
    Thank you, Senator Leahy for that extremely kind 
introduction. It has been a great privilege to assist you in 
your work as a tireless champion for Vermont and the men and 
women of the National Guard. When it comes to Guard issues, 
Senator Leahy and Senator Bond have been true partners, and I 
would like to express my gratitude to Senator Bond and his 
staff, particularly James Pitchford and Mike DeBois for their 
professionalism, generosity, and friendship.
    Recently I was fortunate enough to be able to travel with 
Senator Leahy to Kuwait, Iraq, and Afghanistan. We saw many 
incredible airmen and many other servicemembers working long 
hours in challenging and dangerous conditions. If confirmed, I 
will work with the Air Force team to insure that the Air 
Force's policies are worthy of our airmen whether from the 
Guard, the Reserve, or the Active Force. I thank you for the 
opportunity to appear before you today, and I look forward to 
your questions.
    [The prepared statement of Mr. Ginsberg follows:]
                 Prepared Statement by Daniel Ginsberg
    Thank you Chairman Levin, Ranking Member McCain, and members of the 
committee. It is a deep honor for me to sit before you as President 
Obama's nominee to serve as the Assistant Secretary of the Air Force 
for Manpower and Reserve Affairs. I am humbled by the opportunity to 
work with this committee and serve in the civilian leadership of the 
United States Air Force under the direction of the President, Secretary 
of Defense Robert Gates, and Air Force Secretary Michael Donley.
    One of the most formative experiences of my professional life was 
to serve on this committee's staff under then-Chairman Sam Nunn. In 
that time, I saw first-hand Senator Nunn's and the committee's abiding 
commitment to our soldiers, sailors, marines, and airmen. That 
dedication translated into far-reaching pay and benefit initiatives 
that have helped maintain the fundamental strength of the Armed 
Forces--its people.
    Thank you, Senator Leahy, for that extremely kind introduction. It 
has been a great privilege to assist you in your work as a tireless 
champion for Vermont and--in your leadership role as the co-chair with 
Senator Bond of the Senate's National Guard Caucus--a stalwart 
supporter of the Citizen-Soldiers and Citizen-Airmen of the Guard. It 
has been a singular and unforgettable experience to be able to play a 
supporting role in your efforts to help strengthen this critical 
component of the Total Force.
    Senator Leahy and Senator Bond have been partners at every turn, 
and I would like to express my gratitude to Senator Bond and his 
staff--particularly James Pitchford and Mike Dubois--for their 
professionalism, generosity and friendship.
    I would also like the committee to know the debt of gratitude that 
I owe to my lovely wife Jessica Rose, who is with us today. I am 
grateful that my parents Jerry and Rona have flown up from Atlanta to 
be here. In my younger years they indulged my utter fascination with 
military aviation and, later, my desire to work in the defense policy 
realm. I also thank my mother-in-law Marilyn Coleman and my sister-in-
law Jennifer Rose for making the effort to be here.
    Over the Memorial Day Congressional Recess, I was fortunate to be 
able to travel with Senators Leahy, Warner, and Whitehouse to Kuwait, 
Iraq, Afghanistan and Pakistan. We saw so many incredible airmen, and 
all of our uniformed men and women, working long hours in the most 
challenging conditions to carry out Coalition military operations. The 
members of the United States Air Force are investing every ounce of 
their will, their skill, and their energy. For every one of these 
dedicated professionals, there are loved ones who are waiting and 
sacrificing at home.
    This committee knows, and I assure you that I know, that the Air 
Force's unequaled and indispensable asset is its people. If confirmed 
as the Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs, I will work with the entire Air Force team to help ensure that 
policies and practices of the Air Force are worthy of our airmen's 
efforts. I will also remain committed to the ability of the National 
Guard and the Air Reserves to bring their specialized capabilities to 
bear in any situation.
    I look forward to working with this committee, which has helped 
shape the Department of Defense into the world's premiere defense 
organization. I thank you for the opportunity to appear before you 
today and look forward to having the chance to serve with and for the 
proud men and women of the United States Air Force.

    Chairman Levin. Thank you so much. We'll try 8 minute 
rounds for questioning.
    First, General McCarthy, let me ask you about the 
recommendations of the commission on the National Guard and 
Reserves. They determined that Reserve component personnel are 
called upon to serve in 29 different duty statuses, which are 
confusing and frustrating to Reserve component personnel and to 
their commanders. The commission recommended a reduction of the 
number of duty statuses from the current 29 to 2. Do you have 
an assessment of that recommendation?
    General McCarthy. Yes, sir, I do. I concur entirely with 
the recommendation that 29 is way too many. I'm not quite sure 
I would go down to two, but I believe that the number of duty 
status or pay statuses can be very sharply reduced, and I know 
the Department is working on that right now, and I'll continue 
to support those efforts.
    Chairman Levin. The commission also made a number of 
recommendations to improve the healthcare benefits available to 
Reserve component members and their families in order to 
recognize its importance as an element of an enhanced compact 
with employers of Reserve component members. Can you give us 
your thoughts about that proposal to improve the healthcare 
benefits for National Guard and Reserve personnel and their 
families?
    General McCarthy. Again, Senator, I think that is a very 
supportable recommendation primarily because we need to enhance 
the continuity of medical care so that families when the 
servicemember moves on and off of active duty don't have a 
break from the healthcare providers, and I believe we can do 
that. I think steps have already been made. I think there are 
further steps that can be made, and I look forward to working 
on that.
    Chairman Levin. General, you've served with distinction as 
the Executive Director of the ROA for the past few years. Now 
you're going to, when confirmed, owe your dedication to the DOD 
and to the taxpayers and that may put you in an unusual 
situation where you might have to instead of advocating for the 
ROA. You may need to be actually declining to support a 
recommendation of theirs or other organizations that represent 
the Guard and Reserve. Are you going to have difficulty doing 
that? Are you up to it?
    General McCarthy. Sir, I'm up to it. I think people who 
know me know I'm a person who speaks and acts his mind. In this 
office, my mind will be that of the Secretary, the 
administration, and DOD.
    Chairman Levin. Thank you. Now, Dr. Morin, you're going to 
be in a position where we're going to have some extraordinarily 
difficult budget decisions to make. You're used to that, so 
you're probably a perfect fit for where you're going. The 
Government Accountability Office (GAO) reported earlier this 
year that cost overruns on the Department's 97 largest 
acquisition programs alone total almost $300 billion over the 
original program estimates, and Air Force programs account for 
a significant share of those overruns. What steps can you 
envision to deal with this kind of problem?
    Dr. Morin. Well, Senator, I think there's a couple sets of 
steps that you can take. One, if I'm confirmed, would be in 
dealing with the programs that currently exist. The second 
would be in dealing with the new programs that are developing 
and being base-lined. On the first category the challenge, as I 
understand it, a Comptroller faces in dealing with acquisition 
programs is first and foremost providing stability to those 
programs in the face of all of the unending pressures for late 
breaking changes in order to yield savings for what end up 
being more urgent priorities, and that's a managerial 
challenge. I do know that Secretary Donley and General Schwartz 
have been very articulate in their focus on restoring 
acquisition excellence in the Air Force, and that they have 
made clear in the conversations that I've had with them, 
frankly both in my current job and as I've talked to them about 
potentially coming onboard at the Air Force, that they want to 
do better. So my job would be to support the Air Force 
corporate process and that budget decisionmaking to provide the 
maximum stability. The second set is going forward as new 
programs are developed, baselined, and the cost estimating 
role, which this committee made a big focus on in the Weapons 
System Acquisition Reform Bill, is part of the financial 
management function. I would intend, if confirmed, to place 
significant importance and significant focus on building the 
skills of the Air Force cost estimation team. The Acquisition 
Workforce Development Fund is already, as I understand it, 
paying significant dividends in terms of better training and 
expanding the size of that workforce. But also, empowering 
those cost estimators, encouraging the best possible 
communication between the Air Force cost estimators and the 
Office of the Secretary of Defense (OSD), because I think that 
dialogue is critical, getting those multiple views, and the 
independence that this committee places so much importance on. 
So I would work to facilitate that process if I was confirmed 
and empower the people there.
    Chairman Levin. A major headache is the one that you just 
addressed which we seek to address in that reform legislation 
that was just passed and signed, is the financial management 
problems, the effort to obtain a clean financial statement. Any 
thoughts on how you're going to tackle that issue? You make 
reference to it, I think in terms of what the goal is to 
achieve it, but any thoughts on how to move towards that goal?
    Dr. Morin. Yes, sir. Let me start by saying I take the 
GAO's reports and recommendation on this very seriously. I 
found their work to be excellent in my time on Capitol Hill. I 
would work closely with them and pay very careful heed to their 
analysis and their high risk series. My understanding is that 
Secretary Hale is making a complete review of the Financial 
Improvement and Audit Readiness (FIAR) Plan, the FIAR plan, and 
that he is looking at making some changes in the strategy 
underlying that plan in order to create stronger incentives by 
focusing the audit deliverables on products which will most 
improve the overall immediate financial management of the 
Department. So not just working our way one by one through line 
items or elements of the financial statements, but picking the 
highest impact ones that will most improve the day-to-day 
financial management. I think that's great from an incentive 
perspective because that gives the senior leadership of the 
department immediate practical deliverables that help them do 
their job, and audit readiness is the law. We're behind 
schedule, but having those day-to-day managerial incentives I 
think will help it to rise higher and higher on the Department 
priority list.
    Chairman Levin. Thank you.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. To our 
distinguished panel I also extend to you my congratulations for 
your willingness to continue in government service and to your 
families I also extend my thanks and the American people are 
grateful for your service. General McCarthy, I think I have one 
of your reservists that just joined my staff, a young man by 
the name of James Freeman, and he wanted to make sure that I 
stood here and gave you a tough time. I don't think I'll do 
that.
    General McCarthy. Thank you, sir.
    Senator Burris. But we're very fond of the young man, and 
he speaks very highly of you. To the whole panel, I would just 
like to know for my own information we're now in the month of 
June, when did you get the nomination from the President? Could 
you each tell me what date you were nominated, and how long the 
process has been for you to get to this point?
    General McCarthy. Senator, although there were a number of 
discussions, I believe my nomination was actually made on the 
first of June.
    Senator Burris. The first of June, okay.
    How about you, Dr. Morin?
    Dr. Morin. Senator, as I recall it was May 11. I couldn't 
swear to that.
    Senator Burris. Okay, and you, Mr. Ginsberg?
    Mr. Ginsberg. I can't swear to the date either, Senator, 
but it was a similar time to General McCarthy, a few weeks ago.
    Senator Burris. How has the process been? Have you all 
completed all your documentation, and how many forms have you 
filled out, do you want to answer that?
    General McCarthy. Speaking for myself, it's a lot of forms, 
and whether they've all been filled out properly remains to be 
seen.
    Chairman Levin. There's a real test for Dr. Morin, by the 
way, as the Comptroller. Do you know precisely how many forms 
you filed out?
    Dr. Morin. Senator, at the Budget Committee we historically 
round to the nearest tenth of a billion, so I can tell you it 
was zero-tenths of a billion.
    Senator Burris. To Dr. Morin, my understanding of the 
Comptroller is limited, you have to give me some background. I 
read your response to the questionnaires in terms of financial 
management and comptroller for the Air Force, would you also be 
putting together the budgeting process for that, or would you 
just be overseeing the spending process?
    Dr. Morin. The Assistant Secretary for Financial Management 
has responsibility over both. The responsibility in the budget 
formulation process is as the principal staff assistant to the 
secretary in the budget formation. The day-to-day budget 
formation and development process is the responsibility of one 
of the three Deputy Assistant Secretaries that works for the 
Assistant Secretary for Financial Management, and that's 
traditionally a military officer serving in a civilian 
secretariat job, so that would be one of the direct reports to 
my office if I was confirmed.
    Senator Burris. Do you have an understanding of how this 
would work? Will you actually be preparing any of the financial 
records and looking at the financial statements for the Air 
Force in conjunction to preparing documents that would be 
audited by GAO, or how do you perceive that as working?
    Dr. Morin. Yes, sir. I would sign the financial statements. 
Another one of the three Deputy Assistant Secretaries under the 
financial management functional organization is the financial 
operations, and that is a large group of people that handles 
the actual accounting which is also decentralized among many 
units. Ultimately, the responsibility both for setting the 
policies and for asserting the validity of what we put on paper 
would fall to me if I was confirmed.
    Senator Burris. As a freshman Senator, I'm trying to get my 
arms around how that financial system works because I'm a 
former State Comptroller.
    Dr. Morin. Yes, sir.
    Senator Burris. Many years ago, when I was president of the 
National Association of State Auditors, Controllers and 
Treasurers we were definitely concerned not only about our 
states, but our Federal Government was making financial 
expenditures and oversight of financial expenditures, and we 
came up with a concept that the current auditor general for 
GAO, I'm sorry, current comptroller for GAO would become what 
we call an auditor general, and then we would have a 
comptroller general that would oversee all the department's 
financial records and statements. We compromised with them and 
a comptroller would be put in the Office of Management and 
Budget (OMB) and another comptroller then placed in the bigger 
agencies. Do you know in DOD I would assume there is a 
comptroller for the whole department, is that correct?
    Dr. Morin. Yes, sir. There's the Under Secretary of Defense 
Comptroller, the Honorable Robert Hale----
    Senator Burris. Okay.
    Dr. Morin.--confirmed by this committee a few months ago, 
he is the Comptroller and Chief Financial Officer of DOD. He 
sets the broad policies for the department, and then each of 
the individual Military Services has an assistant secretary for 
financial management who serves as the Comptroller for that 
department.
    Senator Burris. Do you report in to him? Do you create 
statements to turn into the combined statement reporting for 
DOD?
    Dr. Morin. Yes in an ultimate sense. DOD, the OSD rolls up 
the Service reports, and rolls up the reports from the 
independent defense agencies and some of the other activities, 
TRICARE, many other agencies all have their own individual 
financial statements, and those are rolled up into the OSD 
level reports, but both the Services and the OSD submit their 
reports individually to OMB and to Congress.
    Senator Burris. So your statements go in separately, 
individually you said?
    Dr. Morin. They go in both individually and as part of the 
combined product.
    Senator Burris. Okay. Do you know whether any of those 
statements, and maybe this is a bad word in the Federal 
Government, but in State government it has to be in accordance 
with generally accepted accounting principles. Do you all use 
the Governmental Audit Principles (GAP) standard here?
    Dr. Morin. OMB circular A123 sets GAP, and the principles 
are not exactly the same.
    Senator Burris. Not auditing standards, financial.
    Dr. Morin. Yes, and we do not apply precisely the generally 
accepted accounting principles of the private sector, but there 
is a parallel generally accepted governmental accounting 
principles.
    Senator Burris. What you want to do and when you want to do 
it.
    Dr. Morin. Well, the Comptroller General at GAO has a great 
deal of influence in setting those standards, and standards are 
set by OMB for the executive agencies. The details of how much 
flexibility there are in those standards I can't comment on 
yet. I just don't know.
    Senator Burris. My time is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Burris.
    Mr. Ginsberg just a few questions for you. Two of the 
issues that you're going to be faced with immediately are the 
problems of sexual assaults of servicemembers. It's a huge 
issue. It continues to be a huge issue. Rather than to press 
you now for your assessment of the problem, I would just ask 
that you make a commitment to address this issue as one of your 
first orders of business.
    Mr. Ginsberg. Absolutely, Senator. My understanding is that 
Air Force does take this issue very seriously.
    Chairman Levin. They do.
    Mr. Ginsberg. Yes.
    Chairman Levin. It's essential that they do so. Second is 
suicide prevention. We have a growing number of suicides in all 
of the Services including the Air Force. Suicides in the Active 
Duty Air Force, Air National Guard, Air Force Reserve increased 
from 37 to 44 from 2007 to 2008, and I would make the same 
request, the same point relative to suicides.
    Mr. Ginsberg. Absolutely, Senator. Again a very serious 
issue.
    Chairman Levin. In your response to advance policy 
questions, Mr. Ginsberg, you indicated that the most critical 
shortcoming in the Air Force is wounded warrior care and 
retaining wounded airmen on active duty who want to remain on 
active duty to ensure that they can continue to be productive 
members of the Air Force.
    Do you have any thoughts as to how you're going to address 
that?
    Mr. Ginsberg. Senator, my understanding is the Air Force 
has a very deep commitment of taking care of its wounded 
warriors. They have a very good program that matches wounded 
warriors with oversight personnel. In terms of how to keep them 
engaged, keep them in the Service if that's what they desire, 
it's a matter of close attention. Again, making sure that there 
are personnel who are assigned to oversee their recovery so 
that they can fulfill their full potential given their state 
and given their health condition. Again, I think it's a matter 
of assigning personnel, assigning manpower, assigning people to 
be involved. One of the things I'd love to do is look at 
whether there are any policies that are needed, whether there 
are so many cases across the Services that there might be some 
kind of regulation or guidance that needs to be issued. I 
would, of course, do that working, if confirmed, with the 
entire Air Force team and with the Secretary, of course.
    Chairman Levin. When Senator Burris asked you when your 
nominations came here, I think he was perhaps surprised, and 
perhaps some members of our audience were surprised by the 
speed with which we've handled your nominations. He did not ask 
you how long it took to get your nominations, which would 
probably be an embarrassing question for you to answer because 
that takes often an unseemly length of time, but we're very 
proud of the speed with which we handle nominations, yours 
being good examples of it. That's tremendous staff work that 
takes on the part of our staff. Both the majority and 
Republican staff do a phenomenal job with nominations, and we 
don't often have an opportunity to express appreciation 
publically for them to them for that service, but since Senator 
Burris asked the question, that triggered that possibility.
    We are again grateful to you for your service in the past, 
for your service in the future. We're going to move these 
nominations, all six of them as quickly as we can. That depends 
on our being able to get together a quorum, and that usually 
takes a little while to put that in place, and then for the 
Senate to act which usually can be done fairly quickly. So it 
is surely hopeful that these nominations will be acted upon by 
the Senate within the matter of a week or two.
    We thank your families for their support, and particularly 
want to single out your son, Dr. Morin, Liam. I understand he 
is 4 years old, is that correct? He has just been absolutely 
superb.
    Dr. Morin. Thank you, Senator.
    Chairman Levin. I have a grandson who is a little older 
than that, and I'm sure when my grandson was four, he would 
have done an equally superlative job of looking interested in 
what his father had to say, and at being extraordinarily 
patient with this process. His grandmother, who I think is 
smiling absolutely mightily here, my wife is a grandmother as 
well, and I can just imagine her sitting there with her 
grandson, our grandson, during this process how proud she must 
be of you and him.
    Do you have other children may I ask?
    Dr. Morin. Liam is my only.
    Chairman Levin. Liam is your only.
    Dr. Morin. He has the blessing of being the first 
grandchild on both sides of the family.
    Chairman Levin. I can see the look in the grandma's eyes 
how proud she is of both of you.
    Thank you all. Thank your families. We'll stand adjourned.
    [Whereupon, at 11:14 a.m., the committee adjourned.]

    [Prepared questions submitted to Gordon S. Heddell by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Based on your experience as the acting Inspector General (IG) for 
the Department of Defense (DOD), do you see the need for modifications 
of any Goldwater-Nichols Act provisions?
    Answer. At this time, I do not know of the need for any 
modifications to the Goldwater-Nichols Act. It has led to enhanced 
jointness, increased readiness, and created a higher standard of 
warfighting efficiency. However, if confirmed I will notify Congress if 
the Office of Inspector General identifies the need for modifications 
to the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see response above.
                             qualifications
    Question. Section 3 of the Inspector General Act of 1978 provides 
that IGs shall be appointed on the basis of their ``integrity and 
demonstrated ability in accounting, auditing, financial analysis, law, 
management analysis, public administration, or investigations.''
    What background and experience do you possess that you believe 
qualifies you to perform the duties of the DOD IG, particularly in the 
area of oversight, audit and investigation?
    Answer. I have 8 years of experience as an IG and was responsible 
for the conduct of audits and investigations related to matters at the 
Department of Labor. I have extensive experience as an investigator 
with the United States Secret Service. Additionally, I have been 
serving as the acting IG for DOD since July 2008 and am responsible for 
the conduct of audits, evaluations, and investigations related to 
matters at the DOD.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. I believe that learning is a life long and continuing 
process. I learned a great deal during my tenure as Inspector General 
at the Department Labor. I will take those 8 years of experience and 
build upon them as the IG of DOD, if confirmed.
    Question. Based on your background and experience, are there any 
changes that you would recommend with respect to the current 
organization or responsibilities of the DOD IG?
    Answer. Since arriving at the DOD IG in July 2008, I've recognized 
the need to make certain adjustments to the organization as well as a 
need for additional resources. Those include an establishment of an 
Office of Professional Responsibility, a Deputy IG for Administrative 
Investigations, and the Ombudsman. If confirmed, I will continue to 
assess the current organizational alignment and will make further 
changes, as needed.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. Section 8(c) of the IG Act of 1978, as amended (the IG Act) 
states that the IG shall ``be the principal adviser to the Secretary of 
Defense for matters relating to the prevention and detection of fraud, 
waste, and abuse in the programs and operations of the Department . . 
.''
    If confirmed, I will continue to consult directly with the 
Secretary of Defense as necessary and appropriate, especially with 
respect to matters governed by section 8(b)(1) of the IG Act. I will 
seek to maintain a strong and effective relationship with the Secretary 
that enables me to carry out my statutory duties with the independence 
required under the IG Act, while enabling the Secretary to exercise his 
statutory supervisory authority.
    Question. The Deputy Secretary of Defense.
    Answer. Section 3(a) of the IG Act states that ``each IG shall 
report to and be under the general supervision of the head of the 
establishment involved or, to the extent such authority is delegated, 
the officer next in rank below such head.'' DOD Directive 5106.01, 
dated April 13, 2006, states that ``the IG of the DOD shall report to 
and be under the general supervision of the Secretary of Defense and 
the Deputy Secretary of Defense. . .'' Accordingly, if confirmed, my 
relationship with the Deputy Secretary of Defense will be similar to my 
relationship with the Secretary of Defense.
    Question. The Under Secretary of Defense (Comptroller/Chief 
Financial Officer) (USD(C/CFO)).
    Answer. If confirmed, I will continue to work with the USD(C/CFO) 
to formulate the IG's portion of the annual President's budget for 
submission to Office of the Secretary of Defense (OSD) and Office of 
Management and Budget (OMB), as well as request required resources to 
conduct the IG's mission. I will work with the USD(C/CFO) on areas of 
concern within the financial management arena which the IG has 
identified as a major management challenge for the Department. I will 
conduct and supervise audits and investigations relating to the 
programs and operations of the establishment in order to promote 
economy, efficiency, and effectiveness.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Answer. The office of the DOD IG has also identified acquisition 
processes and contract management as a major management challenge for 
DOD. It is therefore essential for the IG to maintain an effective 
working relationship with the USD(AT&L). If confirmed, I anticipate 
working closely with the Under Secretary concerning the allocation of 
IG resources in the acquisition area, and how best to implement audit 
recommendations pertaining to acquisition processes. As IG, I would 
also recommend policies, in coordination with the USD(AT&L) and the 
USD(Comptroller), to ensure that audit oversight of contractor 
activities and financial management are coordinated and carried out in 
an efficient manner to prevent duplication.
    Question. The Assistant Secretaries of Defense.
    Answer. We have and will continue to work with the various 
Assistant Secretaries of Defense in managing challenges faced by the 
Department, as outlined in our Semiannual Report to Congress. For 
example, recent interactions have involved the Assistant Secretary of 
Defense (Health Affairs) pertaining to our work on TRICARE fraud.
    Question. The General Counsel of DOD.
    Answer. If confirmed, I will continue to work with the General 
Counsel of DOD who serves as the Chief Legal Officer of DOD.
    Effective September 23, 2008, an Office of General Counsel within 
the Office of Inspector General was established outside of the 
authority, direction and control of the General Counsel of DOD. The 
establishment of this independent Office of Counsel ensures that the IG 
receives independent legal advice and is in accordance with the 
provisions of the National Defense Authorization Act of 2009 and the IG 
Reform Act of 2008.
    Question. The Director of Operational Test and Evaluation (DOT&E).
    Answer. The IG and the DOT&E have a common interest in ensuring 
that equipment and weapons systems allocated to the warfighter perform 
effectively and as planned. If confirmed, I would expect to consult as 
appropriate with the Director concerning the initiation of oversight 
efforts in these areas.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. The IG and the Director of Cost Assessment and Program 
Evaluation will have a common interest in ensuring that acquisitions 
made by the Department undergo cost assessments and program 
evaluations. I will seek to establish a cooperative working 
relationship with this new office.
    Question. The IGs of the Military Departments, Defense Agencies, 
and the Joint Staff.
    Answer. Section 8(c)(2) of the IG Act states that the IG of DOD 
``shall . . . initiate, conduct, and supervise such audits and 
investigations in the DOD (including the military departments) as the 
IG considers appropriate. . .'' Section 8(c)(9) adds that the IG 
``shall . . . give particular regard to the activities of the internal 
audit, inspection, and investigative units of the military departments 
with a view toward avoiding duplication and ensuring effective 
coordination and cooperation. . .''
    If confirmed, I will ensure that the DOD IG continues to coordinate 
and avoid duplicative efforts. The DOD oversight community uses 
internal coordination mechanisms to deconflict potential duplicative 
efforts. In addition, DOD directives govern certain programs in which 
the IGs of the military departments participate.
    Question. The IGs of subordinate commands.
    Answer. My relationship with the IGs of subordinate commands will 
be based on the IG role described above in part I. If confirmed, I will 
work closely with the other DOD IGs to carry out applicable policies 
and guidance; avoid duplication, overlapping, and gaps; and work to 
build a strong team.
    Question. The Criminal Investigative Services of the Military 
Departments.
    Answer. Under the IG Act, the IG has the authority to initiate, 
conduct, and supervise criminal investigations relating to any and all 
programs and operations of the DOD. In addition, the IG is statutorily 
authorized to develop policy, monitor and evaluate program performance, 
and provide guidance regarding all criminal investigative programs 
within the Department. The DOD IG works frequently in close 
coordination with the Military Criminal Investigative Organizations 
(MCIOs) on joint investigations.
    If confirmed, I will continue to work closely with each of the 
MCIOs to ensure that investigative resources are used effectively.
    Question. The Audit Agencies of the Military Departments
    Answer. Section 4(a) of the IG Act establishes broad jurisdiction 
for the IG to conduct audits and investigations within DOD, and section 
8(c)(2) states that the IG ``shall . . . initiate, conduct, and 
supervise such audits and investigations in the DOD (including the 
military departments) as the IG considers appropriate.''
    If confirmed, I will continue to work with the audit agencies of 
the military departments.
    Question. The Defense Contract Audit Agency (DCAA).
    Answer. If confirmed, I will continue to work with DCAA, as 
prescribed in the IG Act. Although DCAA reports to the Under Secretary 
of Defense (Comptroller), it operates under audit policies established 
by the IG.
    Question. The Defense Acquisition Regulatory Council.
    Answer. The DOD IG regularly provides comments to the Defense 
Acquisition Regulatory Council on proposed changes to the Defense 
Federal Acquisition System and also recommends changes as a result of 
DOD IG work.
    If confirmed, I would expect to continue these practices.
    Question. The Director of Defense Procurement and Acquisition 
Policy.
    Answer. The Director of Defense Procurement and Acquisition Policy 
is responsible for oversight of a large segment of the Defense 
Department's acquisition and contracting operations and, accordingly, 
is a major recipient of reports provided by the IG. If confirmed, I 
would expect to continue the current practice of working with the 
Director.
    Question. The Comptroller General and the Government Accountability 
Office (GAO).
    Answer. The DOD IG works very closely with the Comptroller General 
and the GAO to coordinate planned and ongoing audits and inspections to 
avoid any duplication of efforts. The DOD IG GAO liaison office serves 
as the central liaison between GAO and DOD management during GAO 
reviews of DOD programs and activities.
    If confirmed, I would work to maintain these cooperative 
relationship with the Comptroller General and GAO.
    Question. The Special IG for Iraq Reconstruction (SIGIR).
    Answer. The DOD IG has supported the operations of the SIGIR and 
its predecessor, the Coalition Provisional Authority IG. In accordance 
with the IG Act and Public Law 108-106, title 3, section 3001(f)(4), 
the DOD IG coordinates activities with the SIGIR as well as other 
oversight community members, to avoid duplicating oversight efforts and 
to minimize disruption to military operations. The DOD IG scope of 
oversight authority encompasses all DOD funded operations and 
activities in Iraq and elsewhere. The SIGIR focuses his oversight 
effort only on funds designated for Iraq reconstruction. If confirmed, 
and in keeping with the IG Act, I will work to ensure that the DOD IG 
collaborates effectively with the SIGIR to ensure that we protect the 
public expenditures in Iraq for which we have oversight.
    Question. The Special Inspector General for Afghanistan 
Reconstruction (SIGAR).
    Answer. The DOD IG scope of oversight authority encompasses all DOD 
funded operations and activities in Afghanistan and elsewhere. The 
SIGAR focuses his oversight effort only on funds designated for 
Afghanistan reconstruction. If confirmed, and in keeping with the IG 
Act, I will continue to ensure that the DOD IG collaborates effectively 
with the SIGAR to ensure that we protect the public expenditures in 
Afghanistan for which we have oversight.
    Question. The Commission on Wartime Contracting in Iraq and 
Afghanistan.
    Answer. Since its inception, we have worked with the Commission in 
support of its mission. We have briefed the Commission and its staff 
and, recently, the Principal Deputy IG testified at the initial hearing 
held by the Commission. We are providing the Commission copies of 
reports that address contracting issues in Southwest Asia. We plan to 
initiate a review of construction of the new Kabul compound in response 
to a recent Commission request.
    Question. The President's Council on Integrity and Efficiency 
(PCIE).
    Answer. On October 14, 2008, the President signed Public Law 110-
409, which established the Council of Inspectors General on Integrity 
and Efficiency (CIGIE), replacing the PCIE. In my role as Acting IG, I 
am a member of the Executive Council, serve as the chair of the IT 
committee, and am a member of the Audit Committee. If confirmed, I plan 
to continue to be a very active participant in the CIGIE
    Question. The Defense Council on Integrity and Efficiency (DCIE).
    Answer. Sections 2 and 3 of the DCIE Charter state that, in 
accordance with section 2(2) of the IG Act, the DOD IG, who is the DCIE 
Chairman, is responsible to provide ``leadership and coordination and 
recommend policies for activities designed (A) to promote economy, 
efficiency, and effectiveness in the administration of, and (B) to 
prevent and detect fraud and abuse in such programs and operations.'' 
If confirmed, I would organize meetings with the established members of 
the DCIE to discuss issues of common interest and reinforce close 
working relationships within the DOD oversight community.
    Question. The OMB.
    Answer. If confirmed, I will work with the Deputy Director for 
Management of the OMB, who is the Chairperson of the CIGIE.
               major challenges, problems and priorities
    Question. In your view, what are the major challenges and problems 
facing the next DOD IG?
    Answer. We have challenges related to both our workforce and the 
complexity of our work. Among the human capital challenges are the 
retirement of experienced senior leadership and developing succession 
planning and retention within a highly competitive environment for the 
audit professionals. Further challenges are identified in our 
Semiannual Report to Congress and some of those challenges involve 
conducting audits and investigations in a combat environment as well as 
oversight involving highly technical subjects, such as weapons 
acquisitions and cyber security.
    Question. If you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I will continue to focus on the IG strategic 
human capital plan which among other goals, addresses succession 
planning and leadership development. I will focus audit, investigative, 
and inspection efforts on the challenges identified in the Semiannual 
Report, recognizing the complexity of some of those challenges. I will 
also work with senior DOD officials and Congress to identify emerging 
issues that the Department faces.
    Question. If you are confirmed, what broad priorities would you 
establish in terms of issues which must be addressed by the DOD IG?
    Answer. Promoting efficiency and preventing fraud in defense 
acquisitions is obviously a high priority--as well as effective support 
for the men and women of our armed services and the operations in Iraq 
and Afghanistan. I will also ensure that the IG pursues aggressive 
oversight of contracting issues. If confirmed, I look forward to 
consulting with senior officials of the DOD and with Congress, in 
establishing broad priorities.
    Question. If you are confirmed, what changes, if any, would you 
expect to make in the organization, structure, and staffing of the 
Office of IG?
    Answer. Since arriving at the DOD IG in July 2008, I've recognized 
the need to make certain adjustments to the organization as well as a 
need for additional resources. Those include an establishment of an 
Office of Professional Responsibility, a Deputy IG for Administrative 
Investigations, and an Ombudsman.
    Question. If confirmed, I will continue to assess the current 
organizational alignment and will make further changes, as needed.
                                 duties
    Question. What is your understanding of the duties and functions of 
the DOD IG?
    Answer. The duties and functions of the DOD IG are those specified 
in sections 3, 4, and 8 of the IG Act. Additional duties and 
responsibilities of the IG are specified in DOD Directive No. 5106.01, 
which was signed by the Deputy Secretary of Defense on April 13, 2006.
    By statute, the IG conducts and supervises audits and 
investigations relating to the programs and operations of DOD. The IG 
also provides leadership and coordination, and recommends policy, for 
activities designed to: (1) promote economy, efficiency, and 
effectiveness in the administration of DOD programs and operations; and 
(2) combat fraud, waste, and abuse. In addition, the IG is responsible 
for keeping both the Secretary of Defense and Congress fully and 
currently informed about problems and deficiencies in defense programs, 
the need for corrective action, and the status of such action.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. The Secretary of Defense has prescribed the duties and 
functions of the IG in two DOD publications: DOD Directive 5100.1, 
``Functions of the Department of Defense and Its Major Components,'' 
and DOD Directive 5106.01, ``Inspector General of the Department of 
Defense.'' These publications delineate that the IG DOD provides staff 
assistance and advice in accordance with the responsibilities specified 
in the IG Act. Significantly, these publications reinforce that the IG 
remains an independent and objective unit within DOD. If confirmed, I 
will consult directly with the Secretary to identify specific areas of 
concern and emphasis.
    Question. Section 2 of the IG Act of 1978 states that its purpose 
is to create independent and objective units to conduct and supervise 
audits and investigations; to provide leadership and coordination and 
recommend policies designed to promote economy, efficiency, and 
effectiveness; to prevent and detect fraud and abuse; and to provide a 
means for keeping Congress and agency heads fully and currently 
informed about problems and deficiencies relating to the administration 
of programs and operations and the necessity for and progress of 
corrective action.
    Question. Are you committed to maintaining the independence of the 
DOD IG, as set forth in the IG statute?
    Answer. If confirmed, I will maintain the independence of the IG 
consistent with the provisions of the IG Act.
    Question. Are you committed to keeping the Committee on Armed 
Services ``fully and currently informed,'' and, if so, what steps will 
you take, if confirmed, to ensure that this responsibility is carried 
out?
    Answer. Yes. If confirmed, in accordance with section 2(3) of the 
IG Act, I will remain committed to keeping the Committee on Armed 
Services ``fully and currently informed about problems and deficiencies 
relating to the administration of such programs and operations and the 
necessity for and progress of corrective action.'' I will do so through 
the dissemination of IG products such as the Semiannual Report to 
Congress and audit reports. In addition, I will provide briefings for 
Members and staff, and testimony at hearings, when requested, with the 
intent of maintaining a close relationship.
    Question. Section 3 of the IG Act of 1978 provides that the head of 
an agency, shall exercise ``general supervision'' over an IG, but shall 
not ``prevent or prohibit the IG from initiating, carrying out, or 
completing any audit or investigation, or from issuing any subpoena 
during the course of any audit or investigation.''
    Question. What is your understanding of the supervisory authority 
of the Secretary of Defense over the DOD IG with respect to audits and 
investigations, in view of the independence provided by sections 2 and 
3?
    Answer. Section 2 of the IG Act creates independent and objective 
units . . . to provide a means for keeping the head of the 
establishment and Congress fully and currently informed about problems 
and deficiencies relating to the administration of such programs and 
operations and the necessity for and progress of corrective action.
    Section 3 states that each IG shall report to and be under the 
general supervision of the head of the establishment involved or, to 
the extent such authority is delegated, to the office next in rank 
below such head, but shall not report, or be subject to supervision by, 
any other officer of such establishment. Moreover, neither the head of 
the establishment nor the office next in rank shall prevent or prohibit 
the IG from initiating, carrying out, or completing any audit or 
investigation, or from issuing any subpoena during the course of any 
audit or investigation.
    Question. If confirmed, what action would you take if a senior 
official of the Department sought to prevent you from ``initiating, 
carrying out, or completing'' any audit or investigation within the 
jurisdiction of the Office of the DOD IG?
    Answer. If the action was taken outside the authority of the 
Secretary of Defense in section 8 of the IG Act, I would notify the 
Secretary and request his assistance in ensuring compliance with the IG 
Act by the senior official involved. Failure to resolve the issue, 
would, in my view, constitute a ``particularly serious or flagrant 
problem, abuse, or deficiency'' under section 5(d) of the IG Act. Under 
this section, the IG is required to report the matter to the head of 
the establishment, who is then required to transmit the IG's report to 
Congress within 7 days.
    Question. Section 8 of the IG Act of 1978 states that the DOD IG 
shall be under the authority, direction, and control of the Secretary 
of Defense with respect to certain audits or investigations which 
require access to information concerning sensitive operational plans, 
intelligence matters, counterintelligence matters, ongoing criminal 
investigations by other administrative units of DOD related to national 
security, or other matters, the disclosure of which, would constitute a 
serious threat to national security. What is your understanding of the 
procedures in place to effect the authority and control of the 
Secretary of Defense over matters delineated in section 8 of the act?
    Answer. To my knowledge the procedure in place is to follow the IG 
Act. Under 8(b)(1) or 8(b)(2) of the IG Act, the Secretary has the 
``authority to stop any investigation, audit, or issuance of subpoenas, 
if the Secretary determines that such a prohibition is necessary to 
preserve the national security interests of the United States.'' I am 
informed that this provision has never been exercised. However, in the 
event that the Secretary exercises this authority, I would submit an 
appropriate statement within 30 days to this committee and other 
appropriate committees of Congress, as required under section 8(b)(3).
    Question. What is your understanding of the extent to which the IG 
has, as a matter of practice, initiated and conducted audits or 
investigations covered by section 8 differently from other audits or 
investigations?
    Answer. It is my understanding that the practice of the DOD IG with 
respect to the initiation and conduct of audits and investigations 
covered by section 8 is the same as for other audits and 
investigations.
    Question. What changes, if any, do you believe are needed in the 
practices of the DOD IG for initiating and conducting audits or 
investigations covered by section 8?
    Answer. None to my knowledge.
    Question. Sections 4 and 8 of the IG Act of 1978 set forth various 
duties and responsibilities of IGs beyond the conduct of audits and 
investigations.
    What is your understanding of the supervisory authority exercised 
by the Secretary of Defense with regard to these issues?
    Answer. Beyond the conduct of audits and investigations, section 4 
of the IG Act directs the IG to ``review existing and proposed 
legislation and regulations'' and make related recommendations in 
semiannual reports; recommend policies to promote economy and 
efficiency in the administration of Department programs and operations, 
and to prevent and detect fraud and abuse; keep the Secretary of 
Defense and Congress fully and currently informed about fraud and other 
serious problems, abuses, and deficiencies; recommend corrective 
actions for such problems, abuses, and deficiencies; and report on the 
progress made in implementing such corrective actions. Section 8(c)(1) 
adds that the IG shall ``be the principal advisor to the Secretary of 
Defense for matters relating to the preventing and detection of fraud, 
waste, and abuse in the programs and operations of the Department.'' 
The duties and responsibilities specified in sections 4 and 8 come 
within the general supervisory authority of the Secretary of Defense 
established under section 3(a).
                              independence
    Question. The DOD IG must ensure that the independence of the 
Office of the IG is maintained, that investigations are unbiased, 
particularly those involving senior military and civilian officials, 
and promptly and thoroughly completed, and that the highest standards 
of ethical conduct are maintained.
    Under what circumstances, if any, do you believe it would be 
appropriate for the DOD IG to consult with officials in the OSD (or 
other DOD officials outside the Office of the IG) before issuing a 
report, regarding the findings and recommendations in the report?
    Answer. In regards to audits and inspections, it is the current 
practice for the IG to offer officials in the OSD, or other DOD 
officials, an opportunity to comment before issuing a report to ensure 
that the information in the report is factually accurate and to resolve 
or acknowledge disagreements on conclusions, findings, and 
recommendations. However, for criminal investigations, it is not 
appropriate to discuss the results of ongoing investigations.
    Question. To the extent that you believe such consultation is 
appropriate, what steps, if any, do you believe the IG should take to 
keep a record of the consultation and record the results in the text of 
the report?
    Answer. I believe it is necessary to consult with all parties to 
gather the facts to develop findings and recommendations. The facts 
that are relevant should be included in the text of the report, and 
that a written record of all interviews and consultations are 
maintained in the working papers. The procedures are in place to redact 
certain information from reports in the appropriate circumstances.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG not 
investigate or review a particular matter?
    Answer. Under section 8 of the IG Act, the Secretary of Defense has 
the authority to prohibit the IG from initiating, carrying out, or 
completing any audit or investigation. That authority may be exercised 
when the audit or investigation requires access to information 
concerning: sensitive operational plans, intelligence matters, 
counterintelligence matters, ongoing criminal investigations by other 
administrative units of DOD related to national security, or other 
matters the disclosure of which would constitute a serious threat to 
national security. As noted previously, the Secretary of Defense has 
never exercised his authority under section 8.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG not 
issue a report on a particular matter?
    Answer. No one has the authority to ask the DOD IG not to issue a 
report on a particular matter unless it is the Secretary of Defense, 
under the provisions delineated in section 8.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for senior officials to request that the DOD IG alter 
findings, recommendations, or other pertinent material in a report on a 
particular matter?
    Answer. In the course of conducting audits and inspections, the IG 
practice is to offer officials in the OSD, or other DOD officials, an 
opportunity to comment before issuing a report to ensure that the 
information in the report is factually accurate and to resolve or 
acknowledge disagreements on conclusions, findings, and 
recommendations. Additionally, in cases where an administrative 
investigation substantiates allegations involving a senior DOD 
official, the senior official is given an opportunity to comment on 
findings and conclusions as part of fairness and due process. Those 
comments may request that we alter our findings and are considered 
before we issue a final report. However, for criminal investigations, 
it is not appropriate to discuss the results of ongoing investigations. 
The final decision on the content of reports rests with the IG.
    Question. If confirmed, how would you react to a request, which you 
believed to be inappropriate, to not investigate a particular matter, 
not issue a report on a particular matter, or alter findings, 
recommendations, or other pertinent material in a report on a 
particular matter?
    Answer. With respect to the initiation or completion of an audit or 
investigation, if the request was inappropriate and made outside the 
authority of the Secretary of Defense in section 8 of the IG Act, I 
would reject the proposal. If and when necessary, I would notify the 
Secretary and request his assistance in ensuring compliance with the IG 
Act by the senior official involved.
    Failure to resolve the issue, would, in my view, constitute a 
``particularly serious or flagrant problem, abuse or deficiency'' under 
section 5(d) of the IG Act. Under this section, the IG is required to 
report the matter to the head of the establishment, who is then 
required to transmit the IG's report to Congress.
                         congressional requests
    Question. The Office of IG frequently receives requests from 
congressional committees and Members of Congress for audits and 
investigation of matters of public interest.
    What is your understanding of the manner in which the Office of IG 
handles such requests?
    Answer. The DOD IG receives many requests from congressional 
committees and Members of Congress for oversight reviews, but adheres 
to the same principles of independence in responding to those requests.
    Question. If confirmed, will you ensure that the Office of IG 
continues to respond to congressional requests for audits or 
investigations in a manner consistent with past practice?
    Answer. Yes.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Office of the IG to redact the contents of any 
information contained in a report it provides to Congress?
    Answer. Consistent with the Freedom of Information Act and Privacy 
Act, it is the practice of the DOD IG to provide unredacted copies of 
reports to oversight committees of Congress. Additional releases, 
including those to the public, are redacted in accordance with 
applicable laws.
    Question. In recent years, a number of audits and investigations 
conducted by the DOD IG in response to congressional requests have 
taken excessively long periods of time to complete. In some cases, the 
individuals who have been the subject of such investigations have left 
office by the time the DOD IG has completed its work.
    What is your view of the timeliness and responsiveness of the DOD 
IG's recent work in response to congressional requests?
    Answer. In some very important respects we have not been timely. We 
are, however, striving to improve our timeliness and responsiveness to 
congressional requests. Recent examples of timely and responsive work 
in response to congressional requests include our work regarding 
testing requirements for body armor and the cost, oversight, and impact 
of congressional earmarks. If confirmed, I will continue to improve on 
the timeliness of our responses to congressional requests.
    Question. What steps, if any, would you take, if confirmed, to 
ensure the timeliness and responsiveness of such audits and 
investigations?
    Answer. If confirmed, I will ensure that we continue to improve 
interaction with congressional members and staff to better define and 
scope reviews that are responsive and have realistic timelines. I have 
already initiated actions to improve the timeliness of key audits and 
investigations and have plans to do more in that regard.
                     senior official investigations
    Question. The Office of the DOD IG plays a key role in the 
investigation of allegations of misconduct by senior officers and 
civilian employees of DOD. The Committee on Armed Services has a 
particular interest in investigations concerning senior officials who 
are subject to Senate confirmation, and relies upon the DOD IG, as well 
as the OSD, to ensure that these investigations are accurate, complete, 
and accomplished in a timely manner.
    If confirmed, what steps will you take to ensure that the 
investigations relating to senior officials are completed in a timely 
and thorough manner and that the results of investigations are promptly 
provided to this committee?
    Answer. If confirmed, I will continue efforts I began over the past 
months to increase staffing significantly in the DOD IG senior official 
investigations unit to improve the timeliness of investigative work. I 
am in the process of substantially increasing the authorized number of 
positions in our senior investigation unit and am convinced that we 
will be able to recruit highly capable individuals to these positions 
under the new National Security Personnel System (NSPS) pay setting 
guidelines. I will further ensure that investigations relating to 
senior officials who are subject to Senate confirmation are promptly 
provided to the committee.
    Question. Do you believe that the current allocation of 
responsibilities between the DOD IG and the IGs of the military 
departments is appropriate to ensure fair and impartial investigations?
    Answer. If confirmed, I will ensure that the current allocation of 
responsibilities between the DOD IG and the IGs of the military 
departments is appropriate to ensure fair and impartial investigations. 
Currently, the DOD IG assumes investigative jurisdiction in any senior 
official case where allegations cross service lines or where the 
Service IG may encounter an impediment to independence or be perceived 
as having such an impediment.
    Question. What additional steps, if any, do you think the DOD IG 
should take to ensure that investigations carried out by the IGs of the 
military departments are accurate and complete?
    Answer. If confirmed, I will increase both the frequency and the 
breadth of interaction between my office and the IGs of the military 
departments. In doing so, I would hope to enhance both the relationship 
and the information that is provided by the military IGs. I will ensure 
the reports of investigation completed by the military department IGs 
continue to receive a vigorous oversight review for independence, 
thoroughness, and accuracy. I will not hesitate to assume investigative 
jurisdiction over cases where appropriate; particularly if the subject 
of the allegations is a political appointee, outranks the Service IG, 
or the allegations cross service lines. Additionally, when deficiencies 
are identified in a report of investigation, I will direct my staff to 
complete any additional work to ensure timely resolution of the case, 
while maximizing the independence of the ultimate conclusions.
    Question. At what point in an investigation and under what criteria 
would you initiate action to ensure that a ``flag,'' or suspension on 
favorable personnel action, is placed on a military officer?
    Answer. If confirmed, I will ensure that all senior officials who 
are under investigation or inquiry are properly reported to the Service 
IG to ensure they are ``flagged'' and not eligible for any favorable 
actions. In cases where an officer is pending nomination for promotion 
or reassignment, I will also notify the Under Secretary of Defense 
(Personnel and Readiness) so that that nomination may be placed on hold 
pending outcome of the investigation.
    Upon receipt of any allegation involving a senior official, my 
office conducts a review of the complaint to determine if the 
allegations are credible, if the alleged conduct violated an 
established standard, and if there is sufficient information to conduct 
a focused inquiry. If these questions are affirmatively answered, we 
will open an investigation and notify appropriate authorities.
   resources and authorities of the dod ig's office and investigators
    Question. Do you believe that the DOD IG's office has sufficient 
resources (in personnel and dollars) to carry out its audit and 
investigative responsibilities?
    Answer. If confirmed, I will attempt to ensure that the DOD IG's 
office has sufficient resources to carry out its audit and 
investigative responsibilities.
    I believe that the growth in DOD budget and contracts over the last 
several years, coupled with the complex operating environment in 
wartime, has placed the Department at increased risk for fraud waste, 
and abuse. Providing adequate oversight is a key element in mitigating 
this increased risk. The resource requirements to provide such 
oversight have been addressed in our March 31, 2008, report, 
``Department of Defense Inspector General Growth Plan for Increasing 
Audit and Investigative Capabilities, Fiscal Years 2008-2015.'' If 
confirmed, I will continue to work to ensure that the DOD IG's office 
has sufficient resources to carry out its oversight responsibilities.
    Question. If confirmed, will you communicate any concerns that you 
may have about the adequacy of resources available to the Office of IG 
to Congress and this committee?
    Answer. If confirmed, I will continue to communicate my concerns 
regarding the adequacy of our resource requirements.
    Question. Some Federal agencies have reacted to limited IG 
resources by using contractors to perform some audit and investigative 
functions.
    What is your understanding of the DOD IG's role in determining 
whether the use of contractor resources to perform audit or 
investigative functions is appropriate?
    Answer. For the audit function, the IG Act, section 4(b)(1)(B) 
establishes the authority of each IG to establish guidelines for 
determining when it shall be appropriate to use non-Federal auditors. 
In addition, section 4(b)(1)(C) of the IG Act states that the IG shall 
take appropriate steps to ensure that any work performed by non-Federal 
auditors complies with the standards established by the Comptroller 
General.
    With regard to the criminal investigative function, it is 
considered inherently governmental and therefore contractors do not 
perform such functions.
    Question. Under what circumstances, if any, do you believe that the 
use of contractor resources to perform such functions would be 
appropriate?
    Answer. There is specific guidance in DOD Directive 7600.2 on when 
it is permissible to use contractor resources to perform audit 
functions. It specifically permits DOD components to contract for audit 
services when applicable expertise is unavailable, if augmentation of 
the audit staff is necessary to execute the annual audit plan, or 
because temporary audit assistance is required to meet audit reporting 
requirements mandated by Public Law or DOD regulation. However, the 
directive includes an approval process to ensure the appropriate use of 
non-Federal auditors and that they comply with the Government Auditing 
Standards issued by the Comptroller General of the United States.
    Question. In recent years, the DOD IG has sought and obtained 
increased authority to issue subpoenas, carry weapons, and make 
arrests.
    Do you believe that the authorities of the Office of IG and its 
agents are adequate in these areas, or would you recommend further 
changes in the law?
    Answer. The DOD IG supports the National Procurement Fraud Task 
Force Legislation Committee June 2008 White Paper proposals to improve 
prosecution and adjudication of procurement crimes. The proposals to 
expand the authority of Inspectors General, to include expanded 
subpoena authority, will provide the IG community additional tools to 
conduct investigations and audits.
                     civilian personnel management
    Question. The DOD IG's office has operated under the NSPS since 
2007.
    If confirmed, how would you assess the effectiveness of NSPS in 
creating an accountable personnel system within the DOD IG's office?
    Answer. Since the Defense Business Board is currently conducting an 
assessment to determine the overall effectiveness of NSPS, I am very 
interested in the results of the Board's review. While I agree with the 
overall concept of pay for performance, I am interested in finding out 
more about the system design and its impact on fairness and equity. The 
Board's assessment of the system should provide critical information as 
we plan our own review of our effectiveness in implementing NSPS 
throughout the DOD IG. We are entering our third year under NSPS and I 
believe that after this performance cycle, we will have enough 
information and trend data to conduct a comprehensive review of NSPS 
and determine its effectiveness as an integrated and accountable 
personnel system within the DOD IG. Therefore, if confirmed, I plan to 
direct such an internal review.
    Currently, members of my staff are conducting a barrier analysis to 
determine if there are any implementation factors that lead to 
different outcomes for any of a broad spectrum of employee groups and 
categories. I am also keenly aware that there are trials and errors 
associated with the implementation of any new system and I want to 
ensure that we minimize the negative impact on our workforce; so we are 
continuously assessing and taking advantage of lessons learned.
    Question. What experience have you had with personnel systems other 
than the general schedule and the senior executive service?
    Answer. While my personal experience is limited to the General 
Schedule, I have a team of human resource professionals who have 
extensive experience with other personnel systems. I regularly confer 
with these professionals to ensure that as we implement the provisions 
under NSPS, we do so with a focus on fairness and equity, and a vision 
of improving both individual and organizational performance.
    Question. What, in your opinion, are the strengths and weaknesses 
of alternative systems which link pay with performance?
    Answer. As previously stated, I agree with pay for performance in 
concept. Those who perform the best should see rewards through higher 
pay. To achieve this result, it is imperative that performance 
management systems and the pay systems be linked in a way that is 
clearly transparent and easily understood by employees. Pay for 
performance systems work best where individual performance is valued 
and accurately measured. If implemented well, these systems reward and 
encourage superior performance. If not implemented well, these systems 
can discourage teamwork and can inadvertently de-link pay from 
performance if the system can be manipulated or the system design is 
flawed.
                  dod financial accounting and audits
    Question. The performance of mandatory statutory duties, such as 
the performance of financial audits, has consumed a growing share of 
the resources of the IG's office, crowding out other important audit 
priorities.
    What is your view of the relative priority of financial audits, and 
the resources that should be devoted to such audits?
    Answer. Financial audits will continue to be a high priority 
consistent with the President's Initiatives, the Secretary of Defense's 
top priorities, the Chief Financial Officers Act of 1990, and the 
Federal Financial Management Improvement Act of 1994. It is my 
understanding that the IG has received sufficient resources to conduct 
financial statement audits under the current departmental approach. 
However, as the Department improves audit readiness and the 
requirements for financial statement audits increase, a reevaluation 
may be necessary. If confirmed, I will work with the Department and 
Congress to ensure that the appropriate level of resources continues to 
be dedicated to financial audits. I will also seek to ensure that 
resources committed to financial audits do not come at the expense of 
other audit priorities.
    Question. What is your view of the requirements of section 1008 of 
the National Defense Authorization Act for Fiscal Year 2002, regarding 
resources directed to the audit of financial statements?
    Answer. Section 1008 directs the IG to significantly reduce the 
level of audit work when the Department has asserted that the financial 
statements are not reliable and do not meet accounting standards. This 
allows the IG flexibility to redirect audit resources to other areas 
within the Department. If confirmed, I will continue to work with the 
Department and Congress to ensure that the appropriate level of 
resources is dedicated to audit the Department's financial statements. 
As the level of audit readiness increases across the Department, we 
will focus more audit resources on those financial statements.
    Question. Do you see any need for legislative changes to give the 
IG greater flexibility to target audit resources?
    Answer. If confirmed, I will work with the Department and Congress 
to assess whether legislation in this area is appropriate.
    Question. What is your view of the role of the DOD IG in evaluating 
and contributing to improvements made in the Department's financial 
management processes?
    Answer. The role of the DOD IG is to serve as a catalyst for 
improvements in the Department's financial management processes. That 
role should be consistent with the Department's top priorities, and 
statutory requirements. If confirmed, I will ensure that the DOD IG 
continues this vital function.
                   oversight of acquisition programs
    Question. Problems with procurement, acquisition, and the ability 
of the Department and the military departments to effectively oversee 
acquisition programs have called into question the capability of 
existing DOD oversight mechanisms.
    What role, if any, do you believe the Office of the IG should play 
in achieving acquisition reform?
    Answer. The role of the DOD IG is to serve as a catalyst for 
improvements in the Department's acquisition processes and contract 
management. That role should be consistent with the President's 
Initiatives, the Department's top priorities, and statutory 
requirements. If confirmed, I will ensure that the DOD IG continues 
this vital function.
    Question. Over the last 15 years, the DOD IG has gone from having 
one auditor for every $500 million on contract by DOD to one auditor 
for every $2 billion on contract.
    Do you believe that the DOD IG has the resources it needs to 
conduct effective oversight over the Department's acquisition programs?
    Answer. If confirmed, conducting effective oversight over the 
Department's acquisition programs will be one of my top priorities in 
the IG office. The men and women of our Armed Forces, and our Nation's 
taxpayers, have a right to expect that the funds appropriated by 
Congress for defense acquisitions are being utilized with cost-
efficiency and integrity.
    Based on the information made available to me thus far, I am 
concerned that the audit resources of the IG have not kept pace with 
the growth in contract expenditures for defense acquisitions. I am also 
concerned that the current trend, if unchecked, will significantly 
increase the risk of fraud, waste, and abuse in acquisition programs. 
Therefore, if I am confirmed, it will be vital for the IG, the 
Department, and Congress to work together in a timely way to assess 
whether the IG has adequate resources to conduct this essential 
oversight.
    Question. The DOD IG has played an important role in advising DOD 
and Congress on the sufficiency of management controls in the 
Department's acquisition programs and the impact that legislative and 
regulatory proposals could have on such management controls.
    How do you see the DOD IG's role in this area?
    Answer. The DOD IG has an important role in helping the Department 
to effectively and efficiently manage acquisition resources dedicated 
to the support of the Department's mission, and in accounting for the 
management of those resources to the taxpayer. If confirmed, I will 
ensure that the DOD IG continues its important advisory role.
          oversight of dod activities in iraq and afghanistan
    Question. What is your understanding of the responsibilities and 
activities of the Office of the DOD IG in investigating and preventing 
fraud, waste, and abuse in the course of DOD operations in Iraq and 
Afghanistan?
    Answer. The DOD IG has, in accordance with its legislatively 
mandated mission, conducted audits aimed at identifying and preventing 
fraud, waste, and abuse of funds appropriated to the DOD for its 
operations in Iraq and Afghanistan. In theater, we are looking at the 
planning and execution of contracts in support of the operations of 
coalition forces. The purpose of these reviews is to determine that the 
forces are receiving the right equipment and support to conduct 
successful operations. We are also looking at the accountability of 
equipment provided to coalition forces, contractors, and the Iraq and 
Afghan security forces. Additionally, audits are also being conducted 
in the continental United States (CONUS) on contracts awarded and funds 
expended in the United States that provide significant resources to 
support the warfighter, for military services materiel and equipment, 
and for other purposes in Iraq, Afghanistan, and in Southwest Asia.
    The Defense Criminal Investigative Service (DCIS), the law 
enforcement arm of the DOD IG, and its military criminal investigative 
counterparts, in particular the U.S. Army Criminal Investigative 
Command (Army CID), investigate major frauds, corruption, thefts, and 
other compromises of DOD assets in Afghanistan, Iraq, and other 
countries in that theater. Currently, 13 DCIS agents and one 
administrative specialist are deployed to Iraq, Afghanistan, and 
Kuwait, collocated with Army CID, to conduct operations and 
investigations that primarily involve procurement fraud and public 
corruption. In addition, the DCIS European office and DCIS CONUS 
offices, along with the investigative partners (e.g., FBI), continue to 
investigate Iraq-related matters and travel into theater to conduct 
investigative operations, such as gathering evidence and conducting 
interviews, when crimes are reported. However, the bulk of DCIS's 
investigative activities occur in CONUS where corporate headquarters of 
DOD contractors, key evidence, and Department of Justice prosecutorial 
support are located.
    Also, DCIS is a participant in the International Contract 
Corruption Task Force, a formalized partnership between Federal 
agencies to investigate and prosecute cases of contract fraud and 
public corruption related to U.S. spending in Iraq. The Task Force has 
established a Joint Operations Center specifically to formally 
coordinate investigations and develop a criminal intelligence 
capability to successfully prosecute fraud. DCIS has dedicated a 
special agent to the Joint Operations Center on a full-time basis.
    If confirmed, and in keeping with the IG Act, I will ensure that 
the DOD IG continues to focus oversight efforts to investigate and 
prevent fraud, waste, and abuse of U.S.-provided resources for 
reconstruction and other purposes in Southwest Asia.
    Question. If confirmed, what changes, if any, would you plan to 
make to the DOD IG's oversight activities in Iraq and Afghanistan?
    Answer. If confirmed, I would ensure that DOD IG activities in 
Southwest Asia remain a top priority. I will also assess the current 
level of oversight to ensure that adequate resources are being devoted 
to this mission and that those resources are being allocated 
appropriately.
    Question. If confirmed, what would be your goals with respect to 
the oversight, audit, and investigation of ongoing U.S. activities in 
Iraq and Afghanistan?
    Answer. If confirmed, it is my goal to ensure that the oversight 
provided by the DOD IG of ongoing DOD activities in Iraq and 
Afghanistan is consistent with the responsibilities in the IG Act and 
is sufficient to provide assurance to Congress, the Secretary of 
Defense, and to both the American taxpayer and the warfighter that 
funds supporting DOD activities are expended appropriately and 
effectively.
    Question. The SIGIR and the SIGAR have jurisdiction over contracts 
for the reconstruction of Iraq and Afghanistan. However, the SIGIR and 
the SIGAR do not have jurisdiction over contracts to support our troops 
in Iraq and Afghanistan.
    What role do you believe the DOD IG should play in the oversight, 
audit and investigation of such contracts?
    Answer. The DOD IG office should play an active role in ensuring 
stewardship of taxpayers' dollars and effective contract support for 
our troops through diligent oversight of the contracting function. This 
would include audits, inspections, and investigations, as required. 
Also, we chair the Southwest Asia Joint Planning Group, which is a 
forum for oversight agencies to coordinate audit efforts in Southwest 
Asia.
    Question. Do you believe that a significant on-the-ground presence 
in Iraq is necessary to perform this role?
    Answer. The DOD IG has expanded its presence in Southwest Asia, 
from 16 permanent positions in September 2008 to 30 permanent positions 
in June 2009, with plans to add an additional 6 permanent positions, 
for a total of 36. We now have offices in Iraq, Afghanistan, Kuwait, 
and Qatar. As the draw down in U.S. troops in Iraq proceeds, we must 
continually assess personnel needs based on the nature and scope of DOD 
operations and adjust our on-the-ground presence as appropriate.
    Question. What is the relationship of the DOD IG to the SIGIR and 
the SIGAR?
    Answer. See responses to ``Q.'' and ``R.'' under the previous 
section regarding ``Relationships.''
oversight of medical functions, including outpatient administration and 
                           health care fraud
    Question. Reports of medical cases from military treatment 
facilities involving tragic outcomes and allegations of medical 
malpractice have raised questions about the adequacy of existing 
reporting, investigatory, and readiness systems within the Defense 
Health Program and military treatment facilities. The ability of those 
outside the military medical system to fairly evaluate individual cases 
and overall quality of care is affected by such factors as the tort 
claim laws and adversarial litigation against the United States, 
reliance on privileges from the release of documents and information 
associated with such litigation and separate quality assurance systems, 
patient privacy requirements, and concern about the reputations of 
individual providers. In 2007, deficiencies in the housing and 
administration of severely injured soldiers and Marines in a medical 
hold status at Walter Reed Army Medical Center raised questions about 
the adequacy of oversight into the care of outpatients and members 
involved in the disability evaluation system. In 2008, a Federal judge 
found that DOD's health care program had been cheated out of $100 
million due to payment of fraudulent health care claims in the 
Philippines.
    Do you have any views about the role the DOD IG should play in 
improving visibility into and objective assessments of the quality of 
care provided through the military medical system?
    Answer. I believe the DOD IG has a major role to play in ensuring 
that the military servicemembers and their dependents should receive 
the health care they and their families have a right to expect. 
Accordingly, the DOD IG has identified healthcare as a major management 
challenge in the most recent DOD Agency Financial Report as well as the 
last DOD IG Semiannual Report to Congress. In particular, we noted that 
the frequency and duration of military deployments further stresses the 
military health system in both the active and Reserve components. If 
confirmed, I will ensure that the DOD IG continues to provide the 
independent review and oversight necessary of the military health 
system. Oversight is needed in several areas including cost 
containment, quality of care, access to care, and medical readiness.
    The DOD IG audit component plays a defined role in quality areas. 
By defined, I mean that the audit component focuses on processes that 
affect or are indicators of quality of care without directly evaluating 
the professional opinion of health care providers. However, DOD IG 
auditors are involved in issues such as credentialing of medical staff, 
the reporting of adverse medical events, patient safety, and 
utilization management that improve systemic effectiveness and increase 
the visibility of quality of care. In addition, much of the DOD IGs 
work on cost, access, and readiness also impacts medical quality. For 
example, work in the medical fraud area will help free up resources 
that can be used to provide needed health care and will help ensure 
that qualified physicians are providing care to DOD beneficiaries. 
Additionally, audits of medical equipment used to support operations in 
Southwest Asia and healthcare provided by military treatment facilities 
to contractors in Southwest Asia will assist the network supporting our 
combat medical system and identify additional resources that will allow 
for more efficient care to our wounded warriors.
    As Acting IG, I have directed the expansion of the DOD IG's 
coverage of healthcare quality issues. Our Inspections and Special 
Plans and Operations groups bring a focus on health care quality 
issues. For example our inspections staff has looked at issues to 
improve the transition from the Military Health System to the 
Department of Veterans' Affairs (VA) system. DOD and VA should be 
working hand-in-hand to ensure that the transition between the DOD and 
VA health care systems is seamless. DOD should work with VA to ensure 
that the best possible treatment and care continues for veterans 
throughout recovery and in some cases, throughout the life of the 
veteran.
    Question. What resources and expertise does the DOD IG currently 
have--or lack--to play a more prominent role in assessing the 
performance of health care providers, including identifying and 
preventing health care fraud against the DOD?
    Answer. We have limited resources in our audit and investigative 
components that address health care fraud. Accordingly, we have 
leveraged our resources and have jointly worked with the Office of the 
U.S. Attorney, Western District of Wisconsin, on the $100 million 
Philippine healthcare fraud case that resulted in a successful 
prosecution. To help maintain our expertise, a number of the audit 
staff have become Certified Fraud Examiners. DCIS possesses significant 
expertise in the investigation of health care fraud. Prior to September 
11, 2001, DCIS devoted greater resources to these types of 
investigations. Currently, health care fraud investigations comprise 
about 9 percent of the 1800+ DCIS cases in our inventory. I recognize 
the importance of protecting America's warfighters and families from 
poor quality of care and fraudulent activity and I remain committed to 
pursuing these audits and investigations.
                              intelligence
    Question. What is the role of the DOD IG with regard to 
intelligence activities within DOD?
    Answer. The IG, through the Deputy IG for Intelligence, has 
responsibility for oversight of DOD intelligence activities and 
components as identified in DOD Directive 5240.01, ``DOD Intelligence 
Activities,'' dated August 27, 2007. These include all DOD components 
conducting intelligence activities, including the National Security 
Agency/Central Security Service, the Defense Intelligence Agency, the 
military department intelligence and counterintelligence activities, 
and other intelligence and counterintelligence organizations, staffs, 
and offices, or elements thereof, when used for foreign intelligence or 
counterintelligence purposes.
    Other organizations and components under the IG's oversight not 
specifically identified in DOD Directive 5240.01 include the Office of 
the Under Secretary of Defense for Intelligence (USD(I)), the National 
Reconnaissance Office, and the National Geospatial-Intelligence Agency. 
Responsibilities and functions of the IG as outlined in DOD Directive 
5106.01, ``Inspector General of the Department of Defense,'' include 
the responsibility to audit, evaluate, monitor, and review the 
programs, policies, procedures, and functions of the DOD Intelligence 
Community to ensure that intelligence resources are properly managed. 
The DOD IG performs an oversight and coordination role through the 
Joint Intelligence Coordination Working Group (JIOCG). The JIOCG is a 
DOD working group chaired by the Deputy Inspector General for 
Intelligence and includes representatives from the Service audit 
agencies, military department IGs, and the IGs of the Defense 
Intelligence Agencies. The primary goal of the JIOCG is to avoid 
duplication of effort and enhance coordination and cooperation among 
IGs and Auditors General inside the DOD, and promote information-
sharing among IGs whose functions include audits, inspections, 
evaluations, or investigations of their respective departments and 
agencies.
    Question. What is the relationship of the DOD IG to the Special 
Assistant to the Secretary of Defense for Intelligence Oversight?
    Answer. DOD Directive 5106.01 requires that intelligence-related 
actions be coordinated, as appropriate, with the Assistant to the 
Secretary of Defense (Intelligence Oversight) (ATSD(IO)) to determine 
respective areas of responsibility in accordance with DOD Directive 
5148.11, ``Assistant to the Secretary of Defense for Intelligence 
Oversight,'' dated May 21, 2004. (DOD Directive 5148.11 contains 
similar language for the ATSD(IO) to coordinate with the IG, as 
appropriate.) I am advised that the ATSD(IO) is a charter member of the 
JIOCG, and that the IG has a long history of coordination and 
cooperation with the ATSD(IO).
    Question. What is the relationship of the DOD IG to the IG of the 
Office of the Director of National Intelligence (DNI)?
    Answer. The DOD IG's primary relationship with the DNI IG involves 
participation in the Intelligence Community (IC) IG Forum. The IC IG 
Forum promotes information-sharing among the IGs of the departments and 
agencies of the IC whose functions include audits, inspections/
evaluations, or investigations of their respective departments and 
agencies. The IC IG Forum also strives to avoid duplication of effort 
and enhance effective coordination and cooperation among IC IGs. The 
DNI IG chairs the IC IG Forum.
    In addition to the IC IG Forum relationship, the DOD IG 
participates in various projects and initiatives undertaken by the DNI 
IG. The DNI IG also coordinates with the Office of the Deputy IG for 
Intelligence on all ongoing projects relating to DOD organizations and 
activities. The DNI IG is an Ex-Officio member of the JIOCG.
    Question. What is the role of the DOD IG with respect to detainee 
matters?
    Answer. The DOD IG has statutory responsibility for oversight that 
extends to oversight of detainee and interrogation matters. Consistent 
with that responsibility, the IG issued two final reports regarding 
detainee abuse.
    Question. What is the role of the DOD IG with respect to 
interrogation matters?
    Answer. Please see my answer to the previous question.
 investigation into allegations involving dod public affairs outreach 
                                program
    Question. On January 14, 2009, the Office of the IG issued a report 
on its examination of allegations involving the DOD public affairs 
outreach program. On May 5, 2009, the report was withdrawn, due to 
inaccuracies in data and methodology, and insufficient evidence to 
support the findings of the report.
    What was your role in the issuance and withdrawal of this report?
    Answer. Shortly after the report was issued on January 14, 2009, I 
became aware of inaccuracies in the data concerning Retired Military 
Analyst (RMA) relationships with Defense contractors that appeared in 
Appendix K and elsewhere in the report. The discovery of those 
inaccuracies resulted in my decision to initiate an independent 
internal review of the report and its supporting documentation.
    The report was reviewed by two DOD IG components, the Office of the 
Assistant IG for Audit Policy and Oversight (APO), and the Quality 
Assurance, Policy and Electronic Documentation Division from the Office 
of Auditing. The APO review dated May 1, 2009, and the Auditing review 
of April 29, 2009, both came to the same conclusions and determined 
that the evidence compiled was insufficient to support the findings and 
conclusions of the report. As a result, both recommended that the 
report be withdrawn.
    I concurred with those recommendations and on May 5, 2009, directed 
that the report be withdrawn.
    Question. What is your assessment of the problems that led to the 
withdrawal of this report?
    Answer. The internal reviews concluded that the report did not meet 
accepted quality standards for an IG work product. They found that the 
methodology used to examine the relationships of RMAs with Defense 
contractors such as searches of public websites would not reasonably 
yield evidence needed to address the issue that the outreach program 
conveyed some financial advantage to RMAs who participated in the 
program. Additionally, the reviews noted that the findings relied, in 
part, on a body of testimonial evidence that was insufficient or 
inconclusive. In particular, former senior DOD officials who devised 
and managed the outreach program refused requests for an interview. 
Furthermore, the judgmental sample of RMAs interviewed was too small--7 
out of 70 RMAs--to allow that testimonial evidence to be used to 
support conclusions.
    Question. In your view, are the problems that led to the withdrawal 
of this report unique to a single investigation, or are they 
symptomatic of broader problems in the Office of the IG?
    Answer. I believe the circumstances involved in this report are 
unique. In this particular case, the group responsible for conducting 
this review was comprised of personnel from different DOD IG 
departments. As a result, competing priorities and lack of clearly 
defined procedures and objectives resulted in a product that, based 
upon internal review, did not meet accepted quality standards.
    Question. What steps have you taken to address these problems, in 
your capacity as Acting IG? What additional steps do you plan to take, 
if confirmed?
    Answer. Recommendations contained in the internal reviews will be 
implemented by the Assistant IG for Inspections and Evaluations to 
include the:

        <bullet> Development and establishment of formal internal 
        quality controls for ensuring report accuracy prior to draft 
        report issuance;
        <bullet> Development and establishment of written policies and 
        procedures for internal controls of the inspection and 
        evaluation process and work, in order to provide reasonable 
        assurance of conformance with the PCIE/Executive Council on 
        Integrity and Efficiency Quality Standards for Inspections, 
        January 2005, the ``Blue Book.''

    I also directed on May 28, 2009, a Special Administrative Review 
that is being headed by the Deputy IG for Intelligence. That review 
will examine a variety of issues, such as:

        <bullet> Can findings be made regarding the structure and 
        policies that governed the Public Affairs Outreach Program and 
        the type of access given to RMAs?
        <bullet> Can judgments be made, or are there lessons learned, 
        regarding the establishment of a similar program in the future?
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the IG of DOD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
           department of defense inspector general resourcing
    1. Senator McCain. Mr. Heddell, do you believe that the Department 
of Defense (DOD) Inspector General's (IG) office has sufficient 
resources--in qualified personnel and funding--to carry out its 
investigative and auditing functions?
    Mr. Heddell. The resource requirements to carry out our oversight 
functions are addressed in the DOD IG March 31, 2008, report, ``DOD IG 
Growth Plan for Increasing Audit and Investigative Capabilities, Fiscal 
Years 2008-2015.''
    The growth in DOD budget and contracts over the last several years, 
coupled with the complex operating environment in wartime, has placed 
the Department at increased risk for fraud waste, and abuse. Providing 
adequate oversight is a key element in mitigating this increased risk, 
and the personnel and funding levels identified in our growth plan were 
formulated with this in mind.
    We have received support from both the Congress and the Department 
in resourcing the growth plan. The increase in resources in fiscal year 
2008 and fiscal year 2009 has allowed us to increase personnel; 
establish new offices to meet mission requirements; and expand our 
permanent presence in Southwest Asia. If confirmed, I will continue to 
work to ensure that the DOD IG's office has sufficient resources to 
carry out its oversight responsibilities.

    2. Senator McCain. Mr. Heddell, what do you consider to be the 
major challenges you will face, if confirmed, in ensuring that the IG's 
office is fully capable of timely performing its responsibilities?
    Mr. Heddell. The DOD IG faces significant challenges related to 
both our workforce and the complexity of our work. Among the human 
capital challenges are the retirement of experienced senior leadership 
and developing succession planning and retention within a highly 
competitive environment for the audit professionals. Further challenges 
are identified in our Semiannual Report to Congress and some of those 
challenges involve conducting audits and investigations in a combat 
environment as well as oversight involving highly technical subjects, 
such as weapons acquisitions and cyber security.
    As Acting IG, I initiated the development of a Human Capital 
Strategic Plan which has as its goals to develop: (1) world class 
leaders, (2) a mission ready workforce that is fully engaged, (3) a 
culture that positively impacts the public trust, and (4) integrated 
talent management. Strategy Development Teams have been established and 
charged with developing, and monitoring the implementation of, 
strategies that support the achievement of the agency's human capital 
goals.
    I am also concerned that we allocate resources appropriately. In 
this regard, I recently directed an increase in the staff that conducts 
senior official investigations, military reprisal investigations, and 
civilian reprisal investigations from their current level of 35 to 57 
personnel.
    In some very important respects we have not been timely in 
responding to requests from Congress and the Department. If confirmed, 
I will ensure that we continue to improve interaction with 
congressional members and staff to better define and scope reviews that 
are responsive and have realistic timelines.

            financial auditing in the department of defense
    3. Senator McCain. Mr. Heddell, in April 2009, the head of the 
Financial Improvement and Audit Readiness (FIAR) Plan indicated that it 
took a total of 300 auditors to complete the audit of the Army Corps of 
Engineers. There were 200 auditors on site at one time. An audit of the 
Defense Information Systems Agency required 67 people. Given that the 
Army Corps of Engineers has $54 billion in assets and liabilities, it 
is unimaginable how many auditors it will take to complete an audit of 
DOD with a total of $3.8 trillion in assets and liabilities. The head 
of the FIAR Plan was a former audit partner at Price Waterhouse 
Coopers, and she believes that DOD Office of the IG (DOD OIG) doesn't 
have the capability or audit expertise to conduct an audit of the 
entire DOD. What is the current capability of your audit staff in 
performing a financial audit for DOD?
    Mr. Heddell. The DOD IG currently has the expertise and capacity 
with the assistance of independent public accountants (IPA) firms to 
audit those segments of DOD whose financial statements are audit ready. 
The audit-ready segments include the USACE and two trust fund accounts 
that represent approximately 38 percent of the assets and liabilities 
reported on the DOD Agency-wide Financial Statements. The USACE audit 
was conducted with the assistance of an IPA firm and DOD IG provided 
the oversight required by audit standards and issued the audit opinion. 
The financial statement audits of the Military Trust Fund and Medicare 
Eligible Retiree Health Care Fund are both contracted with IPA firms 
and overseen by DOD OIG. However, given the wide range of audit 
responsibilities we currently have, the sheer number of auditors that 
would be needed to audit the financial statements of the entire 
Department precludes the DOD IG from conducting these audits without 
contractor assistance. Based on the FIAR plan estimates, current audit 
efforts, and known future audits, we estimate that by the year 2018, we 
may need at least 1,400 auditors (DOD IG auditors and IPA auditors) to 
audit the financial statements of the entire Department. This estimate 
does not include other audits of smaller components not tracked by the 
FIAR. Currently, the Defense Business Operations Directorate of the DOD 
OIG has approximately 300 auditors on staff, not nearly the number 
needed for the audits included in the FIAR. We recognized this issue in 
fiscal year 2003 and determined at that point the DOD IG would need to 
contract IPA firms to complete this work. Since fiscal year 2005, we 
have been effectively utilizing this approach and providing the 
necessary oversight to the IPA firms to meet audit standards.

    4. Senator McCain. Mr. Heddell, to what extent is the DOD OIG 
staffed with people who have sufficient experience in performing 
financial audits?
    Mr. Heddell. DOD IG does have the necessary experience to conduct 
financial statement audits. In developing our audit approach in 2003, 
the DOD IG realized it would take both government auditors with 
extensive knowledge of DOD's complex financial management operations 
and numerous IPA firms with financial statement expertise to audit the 
DOD Financial Statements. The issue we are confronted with is the 
volume of auditors needed to complete these large-scale audits within 
Congressionally-mandated timeframes. Even if we were to decide today 
that we should hire additional auditors to complete these audits, there 
would not be a sufficient pool of experienced auditors to pull from. 
The best option is for the DOD IG to hire and oversee IPA firms to 
complete these audits. This option gives us not only the flexibility of 
expanding and contracting the workforce based on demand, but also 
allows the DOD IG to maintain responsibility over the audit work that 
is being done so all of that work can eventually be rolled into a DOD 
Agency-Wide opinion.

    5. Senator McCain. Mr. Heddell, what is your long-term plan for 
staff in that regard, i.e., to what extent does the OIG intend to ramp 
up its auditing capability by the 2017 deadline?
    Mr. Heddell. The DOD IG each year reviews its financial statement 
audit strategy including the progress that DOD is making to improve its 
financial management and move toward auditability. DOD IG recognizes 
the financial statements are by-products of having well defined 
financial management processes and procedures. Continued improvements 
in DOD financial management including enhanced internal controls and 
processes will ultimately lead to DOD producing financial information 
that is reliable and statements that are auditable. At this time, DOD 
IG is devoting a significant portion of its resources to auditing 
various internal controls and financial processes in the Military 
Department's and a few agencies. These audits provide an in-depth 
review of the entity's financial operations and allow us to make 
recommendations that, once fully implemented, will significantly 
improve DOD financial management. As DOD implements our recommendations 
and further improves its financial management operations, the 
Department will become more auditable. Consequently, the DOD IG will 
shift its resources to auditing the financial statement rather than 
focusing on the processes that produced the financial statements. The 
DOD IG has a growth plan that will increase the staff by 34. That plan, 
if funded, will allow us to grow as needed to support the large 
contracting effort.

    6. Senator McCain. Mr. Heddell, within a reasonably foreseeable 
period, will the DOD OIG be capable of conducting the audit for DOD or 
would DOD be better served by having independent external auditors 
conduct the audit?
    Mr. Heddell. The current plan for the DOD IG does not include the 
DOD IG conducting the DOD Agency-wide financial statement audit without 
contracting with multiple IPA firms. Our experience has shown that 
using IPA firms to perform much of the financial statement audit work 
under DOD IG oversight is an efficient and effective way of 
accomplishing this challenging task. The current DOD IG strategy is for 
our auditors to oversee multiple IPA firms that would conduct the 
various financial statement audits making up the DOD Agency-wide 
financial statement audit. This approach allows us to use our current 
and forecasted audit resources to audit the DOD financial statements 
and meet our other mission requirements efficiently and effectively.

                           health care fraud
    7. Senator McCain. Mr. Heddell, you indicated in your response to 
the committee's advance policy questions that you were involved in 
investigating the recent case involving $100 million in fraudulent 
claims against the TRICARE program in the Philippines. What is your 
assessment of the extent of potential fraud and abuse on the 
Department's $47 billion a year health care program?
    Mr. Heddell. The Defense Criminal Investigative Service (DCIS), the 
criminal investigative arm of DOD OIG, conducted the referenced 
investigation. As a result of DCIS' efforts, Health Visions Corporation 
was ordered to liquidate assets and pay over $101 million in fines and 
penalties. Thomas Lutz, Health Vision's chief executive officer, was 
sentenced to 60 months incarceration and was ordered to pay fines in 
excess of $99 million. At present time, this criminal judgment 
represents the single largest TRICARE-related recovery in the history 
of the Department of Justice (DOJ).
    It is difficult to estimate the extent to which fraud and abuse 
impact the Department's health care program; however, Americans spend 
more than $1 trillion each year on health care, and according to the 
Federal Bureau of Investigations (FBI), 3 to 10 percent of total public 
and private health care program expenditures consist of fraudulent 
billings (FBI Financial Crimes Report to the Public, Fiscal Year 2007).
    If confirmed as IG, I will continue to dedicate resources to 
countering fraud, waste, and abuse impacting the TRICARE system.

    8. Senator McCain. Mr. Heddell, is this an issue that has received 
appropriate management attention within the Department and if not, what 
would you propose to do differently if confirmed as the IG?
    Mr. Heddell. As previously mentioned, Audit and Investigative 
components within the DOD IG devote resources to counter fraud that 
impacts the TRICARE program. IG representatives continue to work 
closely with TRICARE's Management Activity to strengthen program 
controls in an attempt to significantly reduce waste and abuse.
    Additionally, representatives from the DOD IG and the DOJ continue 
to work closely with the Assistant Secretary of Defense for Health 
Affairs in an attempt to strengthen TRICARE program controls.
    DOD management is focused on the challenge of delivering improved 
health care while attempting to control costs. Preventing and detecting 
the impact of health care fraud on the TRICARE system will continue to 
be a major part of this challenge. If confirmed as IG, I will make 
every effort to ensure the DOD IG is capable of meeting this 
significant challenge.
                                 ______
                                 
    [The nomination reference of Gordon S. Heddell follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 1, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gordon S. Heddell, of the District of Columbia, to be Inspector 
General, Department of Defense, vice Claude M. Kicklighter, resigned.
                                 ______
                                 
    [The biographical sketch of Gordon S. Heddell, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gordon S. 
Heddell in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gordon S. Heddell (nicknames: Gar, Gordie).

    2. Position to which nominated:
    Inspector General, Office of Inspector General, Department of 
Defense.

    3. Date of nomination:
    June 1, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 13, 1943; St. Louis, MO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married (but separated) to Jana K. (West) Heddell.

    7. Names and ages of children:
    Kerri E. Dudley, 33; Anthony S. Heddell, 30; Gordon W. Heddell, 28; 
Katie A. Heddell, 23.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Illinois (formerly Sangamon State University), 
Springfield, Illinois, Masters Degree, 1975.
    University of Missouri, 1961-1965 and 1970-1971, BA Political 
Science.
    Forest Park Community College, St Louis, MO, 1965-1966.
    Washington University, St Louis, MO, 1965-1966.
    Festus R-6 Public High School, Festus, MO, 1957-1961.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Acting Inspector General, Office of Inspector General, U.S. 
Department of Defense, Arlington, VA, July 2008-Present.
    Inspector General, Office of Inspector General, U.S. Department of 
Labor, Washington, DC, 2001-Present.
    Assistant Director, Office of Inspection, U.S. Secret Service, 
Washington, DC, 1998-December 2000.
    Entered U.S. Secret Service in September 1971.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Positions with the U.S. Secret Service:

          Special Agent in Charge, Vice Presidential Protective 
        Division, 1995-1998.
          Deputy Special Agent in Charge, Vice Presidential Protective 
        Division, 1993-1995.
          Deputy Assistant Director, Office of Training, 1991-1993.
          Deputy Assistant Director, Office of Inspection, 1989-1991.
          Assistant Special Agent in Charge, Philadelphia Field Office, 
        1987-1989.
          Assistant to Special Agent in Charge, Washington Field 
        Office, 1985-1987.
          Assistant Special Agent in Charge, Office of Administration, 
        1982-1985.
          Senior Special Agent, Liaison Division, 1981-1982.
          Senior Special Agent, Vice Presidential Protective Division, 
        1976-1981.
          Special Agent, Springfield Field Office, 1971-1976.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Professional: International Association of Chiefs of Police, Office 
held (none), 1990-2006 (intermittent).
    Civic and Charitable: Created active partnership with Dunbar High 
School and Deal Junior High School to Assist Washington, DC, Inner city 
public schools, 1993-1998, Office held (none)
    Fraternal: Delta Upsilon Fraternity, Office Held (Vice President) 
1964-1965, Member: 1962-Present.
    Alumni Association: University of Illinois, Springfield, IL, Office 
held (None), 1980-Present (Intermittent).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Presidential Meritorious Rank Award (1997).
    Woodrow Wilson Public Service Fellow (1994-2000).
    Numerous Outstanding Annual Performance Ratings--U.S. Secret 
Service.
    Graduated ``First'' in Treasury Federal Law Enforcement Training 
Academy Class (1971).
    United States Army: Awarded Aviator Wings, Good Conduct Medal and 
Army Commendation Medal.
    Outstanding Graduate Award--Festus High School (1996).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Journal of Public Inquiry, Editor in Chief, July 2008-Present (a 
publication of the Inspectors General of the United States); article in 
Journal (c) 2004 regarding labor racketeering and organized crime.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    As the acting Department of Defense Inspector General:
Speeches:
    ``All Hands Audit Employee Meeting'' in the Doubletree Hotel, 
Arlington, VA, on October 14, 2008.
    Fiscal Law Course at Wallace Theater, Fort Belvoir, VA, on January 
13, 2009.
    National Conference Center, Lansdowne, VA, January 26, 2009.
    Emil Kabban's promotion ceremony, February 27, 2009.
    Colonel Donald F. Thompson retirement ceremony on March 2, 2009.
    Closing Remarks: Combatant Command and Joint IG Course at Fort 
Belvoir, VA, March 27, 2009.
    COCOM IG Conference on March 30, 2009.
    DOD IG employees at the Annual Awards Ceremony, May 7, 2009.
    Opening remarks at the Legion of Merit Award Ceremony for LTC John 
Taylor, May 28, 2009.
    Defense Acquisition University, June 2, 2009.
    Retirement ceremony of Thomas F. Gimble, June 3, 2009.
Hearing Statements:
    Gordon S. Heddell Acting Inspector General Department of Defense 
before the Subcommittee on Defense Committee on Appropriations United 
States House of Representatives on ``Department of Defense Outsourcing 
February 26, 2008.
    Gordon S. Heddell Acting Inspector General Department of Defense 
before the Senate Homeland Security and Governmental Affairs Committee 
on Expediency Versus Integrity: Do Assembly Line Audits at the Defense 
Contract Audit Agency Waste Taxpayer Dollars? September 9, 2008.
    Gordon S. Heddell Acting Inspector General Department of Defense 
before the House Oversight and Government Reform Committee on 
``Maintenance of Electrical Systems in Facilities Occupied by Military 
and Contractor Personnel in Iraq'', July 30, 2008.
    Gordon S. Heddell Acting Inspector General Department of Defense 
before the Senate Appropriations Committee on ``The effectiveness of 
U.S. efforts to combat corruption, waste, fraud, and abuse in Iraq'', 
July 23, 2008.
    Gordon Heddell Acting Inspector General Department of Defense 
before the Domestic Policy Subcommittee of the Oversight and Government 
Reform Committee on ``DOD's experience with Circular A-76 competitions 
and the specific context of the A-76 competition which privatized 
Military Retired and Annuitant Pay functions, July 16, 2008.

    As the Department of Labor Inspector General:
Speeches:
    Los Angeles Audit Managers Conference, April 15, 2004.
    Awards Dinner--Monday, May 17, 2004.
    Managers Conference Philadelphia, PA, May 17, 2004.
    OLRFI All Hands Meeting, San Diego, CA, July 12, 2004.
    Managers Conference Phoenix, AZ, August 3, 2005, Leadership 
Accomplishments Dinner
    Closing Remarks Managers Conference, August 2005.
    Association of Government Accountants Philadelphia, PA, November 
16, 2005.
    Welcoming Remarks by Gordon Heddell Inspector General, U.S. 
Department of Labor to PCIE, 2005.
    IG Forum at the National Academy of Public Administration, January 
2006.
    AGA Speech, February 2, 2006.
    African-American History, February 27, 2006.
    Closing Remarks by Department of Labor Inspector General Gordon S. 
Heddell Inspectors General Symposium: Federal Employees' Compensation 
Act (FECA) Program Building a Coordinated Approach to the IG 
Community's FECA-Related Work, Wednesday, March 22, 2006.
    Managers Conference, Dallas Leadership Accomplishments Dinner, May 
8, 2006.
    Opening Remarks, Gordon S. Heddell Inspector General OIG Leadership 
and Training Conference Dallas, TX, May 8, 2006.
    Managers Conference, August 2006.
    Steven Law Farewell Reception, 2007.
    Andrews Trucking Indictment, February 2007.
    Gordon S. Heddell Inspector General Managers' Conference 
Washington, DC, Leadership Accomplishments Reception, May 19, 2008.
    Gordon S. Heddell Inspector General Managers Conference Washington, 
DC, May 20, 2008.
    Briefing to the PCIE.
    Peer Review Update and Training.
    Speech, University of Illinois.
Articles:
    Gordon S. Heddell, Inspector General, U.S. Department of Labor. The 
Evolution of Organized Crime and Labor Racketeering Corruption Fall/
Winter 2004-2005. The Journal of Public Inquiry.
Hearing Statements:
    Statement of Gordon S. Heddell, Inspector General, U.S. Department 
of Labor, before the Committee on Government Reform Subcommittee on 
Government Efficiency, Financial Management and Intergovernmental 
Relations, U.S. House of Representatives, May 9, 2002.
    Statement of Gordon S. Heddell, Inspector General, U.S. Department 
of Labor, before the Committee on Ways and Means, Subcommittee on Human 
Resources, U.S. House of Representatives, June 11, 2002.
    Department of Labor Fiscal Year 2004 Budget Request, Statement for 
the Record for Office of Inspector General House Subcommittee on Labor-
HHS-Education Appropriations, Gordon S. Heddell, Inspector General.
    Office of Inspector General, U.S. Department of Labor Fiscal Year 
2005 Budget Request, Statement for the Record of Gordon S. Heddell, 
Inspector General for the Subcommittee on Labor, Health, and Human 
Services, Education and Related Agencies, Committee on Appropriations, 
U.S. House of Representatives, February 26, 2004.
    U.S. Department of Labor, Statement by Gordon S. Heddell, Inspector 
General, on Top Management Challenges Facing the U.S. Department of 
Labor, Office of Inspector General, March 5, 2002.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Gordon S. Heddell.
    This 8th day of June, 2009.

    [The nomination of Gordon S. Heddell was reported to the 
Senate by Chairman Levin on June 18, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 10, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. J. Michael Gilmore by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Director of Operational Test and Evaluation (DOT&E)?
    Answer. In my view, the principal responsibility of the DOT&E is to 
ensure that the weapons and protective systems our men and women in the 
Military Services must depend on will work in combat. I believe every 
director must regard that responsibility as a special trust they 
assume.
    More specifically, the duties of the DOT&E are covered by statute. 
I understand that, if confirmed, I would serve as the principal advisor 
to the Secretary of Defense and Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)) for all operational 
test and evaluation (T&E) within the Department. I would formulate and 
implement policy for operational T&E and provide oversight of the 
operational testing of major defense programs, major automated 
information systems and other systems as I designate. I would be 
required to provide Congress an Annual Report summarizing operational 
T&E activities that includes comments and recommendations on 
operational T&E resources, facilities, and funding. In addition to the 
Annual Report, I would provide Beyond Low Rate Initial Production 
Reports, Early Fielding Reports for systems that are urgently needed 
and deployed before completion of initial operational testing, live-
fire Reports, an Annual Report on Ballistic Missile Defense (BMD) and 
respond to requests from Congress. My duties would include 
responsibility for prescribing policies and procedures for the conduct 
of live-fire T&E and for monitoring, reviewing, and reporting on all 
operational and live-fire T&E within the Department. I would also be 
responsible for coordinating joint operational testing. I would review 
and provide recommendations to the Secretary of Defense on all 
budgetary and financial matters relating to operational and live-fire 
T&E, including test facilities. In recent years, the authorities of the 
DOT&E have been expanded to allow the assessment of the Ballistic 
Missile Defense System (BMDS), the testing of Information Assurance 
vulnerabilities, and oversight of Body Armor and other critical Force 
Protection equipment being provided to our deployed forces.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have 24 years of experience working with and for defense 
industry, the Defense Department, and the Congressional Budget Office 
(CBO) analyzing the key drivers of operational effectiveness and costs 
of defense programs. This experience, as well as my education and 
training in science and engineering, give me the requisite perspective 
and skills to provide Congress and the Secretary of Defense factual, 
accurate assessments of the operational testing and evaluation of our 
weapons systems, as well as objective recommendations derived from 
those assessments. Furthermore, my experiences with the Defense 
Department's Cost and Analysis Improvement Group and the CBO have given 
me a strong appreciation of the value of independent, objective 
analysis and reporting.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the DOT&E? If so, what 
are they?
    Answer. If confirmed, I would increase my familiarity with the 
capabilities and limitations of the T&E infrastructure within the 
Department of Defense (DOD) and with the many programs that DOT&E 
oversees. I would establish productive and cooperative relationships 
with the USD(AT&L), the new Director, Developmental Test and Evaluation 
(D,DT&E), the new Director, Systems Engineering, the Director of 
Defense Research and Engineering (D,DR&E), the Director, Cost Analysis 
and Program Evaluation, the Director, Test Resource Management Center 
(TRMC), the Military Departments' Operational Test Agencies and the 
Service Acquisition Executives. I would visit test facilities and 
witness the conduct of operational testing and live-fire testing to 
increase my understanding of the complexities and difficulties inherent 
in conducting testing. I would work with the test community, the 
acquisition community, the Joint Staff, and the combatant commanders to 
help ensure effective and suitable weapons systems are provided as 
quickly as possible to the warfighter.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense will assign to you?
    Answer. If confirmed, I expect Secretary Gates would assign me all 
of the duties, functions, and responsibilities currently mandated by 
law and specified in the Department's directives for the position of 
DOT&E.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the DOT&E?
    Answer. I believe there are at least three important challenges 
that the DOT&E currently faces. First, the office must continue to 
strengthen the relationships it has established with rapid fielding 
organizations. Strong relationships with these organizations will 
enable DOT&E to provide oversight of and advice on testing that helps--
not hinders--the fulfillment of their objectives to provide immediate 
help to our soldiers, sailors, marines, and airmen in the field. 
Second, to implement the Weapons System Acquisition Reform Act of 2009, 
DOT&E must establish a productive relationship with the new D,DT&E to 
assure that office is effective and robust. Third, DOT&E must help 
assure that adequate resources--both personnel and modern 
infrastructure--are available to the testing community to support the 
goals of the Reform Act, including its provisions regarding 
organizational conflicts of interest (OCIs).
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would review the results of the oversight 
that DOT&E has conducted of rapid fielding organizations and make 
adjustments to it, as necessary, in consultation with each 
organization's leadership. The extent to which DOT&E's oversight has 
improved each organization's ability to accurately and quickly 
characterize both the strengths and weaknesses of the capabilities they 
field will be key to determining any changes that may be needed. I 
would work with the D,DT&E to develop the practices that will 
institutionalize the Department's new policy for conducting integrated 
developmental and operational testing--that effort should provide a 
natural mechanism for ensuring that office is effective and robust. 
Finally, I would work with the USD(AT&L), the Under Secretary for 
Personnel and Readiness, the D,DT&E, the Director of the Test Resources 
Management Center, and the Director of Cost Assessment and Program 
Evaluation to assess resource needs for T&E as part of the development 
of the Future Years Defense Program (FYDP).
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the DOT&E?
    Answer. The assessments that DOT&E prepares and the test planning 
in which it participates can be accomplished only if requirements for 
systems are realistic, relevant, and testable. A recent Defense Science 
Board Report identified deficient program requirements and inadequate 
systems engineering plans as major contributors to poor acquisition 
performance. Getting the requirements right and starting with a good 
systems engineering plan that is executable are essential for 
successful development and testing. Although DOT&E has implemented 
initiatives in this area, more should be done.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I plan to engage early in the requirements 
and acquisition processes to address the above issues. Early on, I 
would meet with the Joint Staff and the new Director, Systems 
Engineering to assess current practices and develop appropriate 
recommendations for change.
                             relationships
    Question. If confirmed, how will you work with the following:

          The Secretary of Defense.
          The Deputy Secretary of Defense.
          The Under Secretary of Defense for Acquisition, Technology, 
        and Logistics.
          The Under Secretary of Defense for Personnel and Readiness.
          The Director of Defense Research and Engineering.
          The Assistant Secretary of Defense for Networks and 
        Information Integration.
          The Inspector General of the Department of Defense.
          The General Counsel of the Department of Defense.
          The Service and Agency officials responsible for major 
        acquisition programs.
          The Directors of the Services' Test and Evaluation 
        organizations.
          The Joint Requirements Oversight Council.
          The Director of the Defense Test Resource Management Center.
          The Director of Developmental Test and Evaluation.
          The Director of the Joint Improvised Explosive Device Defeat 
        Office.
          The Assistant Secretary of Defense for Health Affairs.

    Answer. The Director's relationship with many of the foregoing 
individuals is described or defined in regulation or policy documents. 
If confirmed, I intend to follow those descriptions and develop strong 
working relationships with all these officials. Particular examples of 
how I would work with selected individuals include the following: To 
help implement the Weapon System Acquisition Reform Act of 2009, as 
well as to develop practices that institutionalize the conduct of 
integrated developmental and operational testing, I anticipate that I 
would be working particularly closely with the USD(AT&L), the new 
D,DT&E, the executives of the Service acquisition organizations, and 
the commanders of the Operational Test Agencies. I would also work with 
these individuals, as well as the Director of the Defense TRMC, the 
Director for Cost Assessment and Program Evaluation, the Under 
Secretary for Personnel and Readiness, and the Deputy Secretary of 
Defense, to assess resource needs for operational T&E during 
development of the FYDP. I would work with the Director of Cost 
Assessment and Program Evaluation to provide data on system 
reliability, availability, and maintainability, and any other data 
derived from operational testing needed to assist in the preparation of 
life-cycle cost estimates for acquisition programs. I would work with 
the Director of the Joint Improvised Explosive Device Defeat Office to 
assist in conducting rapid testing confirming the effectiveness of 
concepts and systems for use in ongoing operations.
                      independence and objectivity
    Question. Congress established the position of DOT&E as an 
independent and objective evaluator of the performance of major 
systems. Report language accompanying the National Defense 
Authorization Act for Fiscal Year 1984 (P. L. 98-94), which was 
codified as section 139 of title 10, U.S.C., states that ``the Director 
[is] to be independent of other DOD officials below the Secretary of 
Defense'' and ``not circumscribed in any way by other officials in 
carrying out his duties.'' In describing the Director's duties, the 
report also noted an expectation that the Director ``safeguard the 
integrity of operational testing and evaluation in general and with 
respect to specific major defense acquisition programs.''
    Can you assure the committee that, if confirmed, you will be 
independent and objective in your evaluations, and that you will 
provide your candid assessment of Major Defense Acquisition Programs to 
Congress?
    Answer. Yes. I believe the credibility and effectiveness of the 
organization depends upon both independence and objectivity. If 
confirmed, I assure you that I will be independent and objective in my 
evaluations and that I will provide candid assessments of the oversight 
I conduct to Congress.
    Question. In your view, does the DOT&E have the necessary 
authorities under sections 139 and 2399 of title 10, U.S.C., and 
applicable departmental regulations to carry out the duties prescribed?
    Answer. Yes.
    Question. Section 2399 of title 10, U.S.C., establishes certain 
requirements regarding the impartiality of contractor testing personnel 
and contracted for advisory and assistance services utilized with 
regard to the T&E of a system. What is your view of these requirements?
    Answer. I fully support the need for impartiality of testing 
personnel. Section 2399 bars personnel employed by a contractor 
involved in development or production of a system, from participating 
in the operational testing of that system. Further, it prevents such 
personnel from advising or providing assistance services, including 
planning and subsequent data analysis, for the operational testing and 
evaluation. The participation of contractors is only appropriate if 
they are specifically intended to be part of the long-term system 
support structure. Section 2399 allows for this exception. In my view, 
section 2399 allows the flexibility to properly structure operational 
testing and also properly provides for impartial contracted advisory 
and assistance service.
    Question. How will you maintain independence from the often 
conflicting goals of the acquisition community and the mandates for 
necessary operational testing?
    Answer. The DOT&E authorities and responsibilities for operational 
T&E and live-fire T&E set out in Title 10 USC, including direct 
reporting of assessments to Congress and the Secretary of Defense, are 
key to the office's ability to maintain its independence. If confirmed 
I will faithfully meet those requirements. Maintaining DOT&E as an 
independent organization with an independent budget is also essential.
                      test and evaluation funding
    Question. Concern over long-term support for and viability of the 
Department's test ranges and facilities led to creation of the Defense 
TRMC in 2002 and a requirement for direct funding of T&E facilities.
    In your view, how are these changes working to address funding and 
sustainability concerns at the department's test ranges and bases?
    Answer. I do not now have insight to accurately evaluate how well 
these changes are working. I am aware, however, that the TRMC is 
responsible for determining the adequacy of the Service investment 
budgets for T&E infrastructure. I understand that the Director of the 
TRMC has generally, but not always, certified the adequacy of those 
budgets. The services have the responsibility within the Department's 
planning, programming, budgeting, and execution system to provide 
funding for T&E facilities. I understand that proposals have been made 
in the past to change where the budgeting authority resides. If 
confirmed, I will explore the need for additional changes in the 
methods the Department uses for managing its T&E facilities.
    Question. Do you believe that the Department's T&E capabilities, 
including infrastructure and workforce, are adequately funded?
    Answer. I do not now have sufficient insight into the details of 
the T&E budgets and current and projected needs for conducting T&E to 
make an informed assessment of the adequacy of current funding. I am 
concerned, however, that historical budget and policy trends, and 
increasing demands for testing, may have caused shortfalls in testing 
resources relative to needs. If confirmed, I would examine this issue 
carefully and work within the Department's planning, programming, 
budgeting, and execution system to assess the adequacy of funding for 
T&E and to develop alternatives for consideration as part of the 
preparation of the FYDP.
    Question. Do you believe that the Department's T&E capabilities, 
including infrastructure and workforce, are adequate to perform the 
full range of T&E responsibilities of DOD weapons systems and 
equipment?
    Answer. The DOT&E fiscal year 2008 Annual Report suggests that 
further investment is necessary to modernize T&E capabilities. More 
generally, I am concerned that historical budget and policy trends, and 
increasing demands for testing, may result in shortfalls in testing 
capabilities relative to needs. If confirmed, I would work within the 
Department's planning, programming, budgeting, and execution system to 
assess the adequacy of T&E capabilities and to develop alternatives for 
consideration as part of the preparation of the FYDP.
    Question. What are your views about the importance of accurately 
projecting future test facility resource requirements and budgeting for 
these needs?
    Answer. In my view, T&E needs should be accurately reflected in the 
TRMC's DOD Strategic Plan for T&E Resources. If confirmed, I will work 
to ensure early involvement of DOT&E in identifying these needs for 
inclusion in that Strategic Plan, and later in the T&E strategies and 
Master Plans prepared for individual programs. Accurately defining 
these resources is essential in ensuring a program is executable at 
inception. Such projections also support and justify Service planning, 
programming, and budgeting for T&E assets and are needed by DOT&E and 
other members of the test community in developing program alternatives 
for consideration during preparation of the FYDP.
    Question. How will the sufficiency of investments in test resources 
and workforces be factored into your assessments and review of proposed 
test plans and schedules for acquisition programs?
    Answer. If confirmed, I would ensure that adequate test resourcing 
was always a consideration in every test program and any shortfalls are 
identified in test documentation. My approval of Test and Evaluation 
Master Plans (TEMP) and Test Plans would be contingent upon the 
availability of adequate test resources. Should a test resource 
shortfall impose unacceptable limitations on test adequacy, I would 
ensure it was corrected or would objectively report on the inability to 
adequately test the system.
    Question. How do you plan to evaluate and improve the operational 
testing workforce in DOD especially in light of the growing numbers of 
new technologies embedded in weapon systems and the desire to speed the 
acquisition and deployment of systems to the battlefield?
    Answer. If confirmed, I will work with the Director, TRMC, and the 
Component Operational Test Agencies to evaluate workforce issues, 
including the adequacy of the size of the operational testing workforce 
and the skills resident in its members. Based on the results of that 
evaluation, I would make recommendations for consideration within the 
Department's planning, programming, budgeting, and execution system.
       office of the director of operational test and evaluation
    Question. How would you assess the adequacy of resources provided 
to the Office of the DOT&E given the missions and responsibilities of 
the office?
    Answer. I am aware DOT&E has added personnel in response to its 
increasing workload. If confirmed, I would review the total 
responsibilities of the office in light of the recent acquisition 
reform legislation--including its provisions regarding OCIs--and the 
Secretary's direction to speed fielding of critical equipment to the 
combat forces. After this review, if additional personnel and funding 
are needed, I would work within the Department's planning, programming, 
budgeting, and execution system to address those needs.
    Question. In your view, does the DOT&E have sufficient support from 
federally-funded research and development centers (FFRDCs) and other 
contractors to support designated missions?
    Answer. I have not had the opportunity to familiarize myself with 
any deficiencies or other problems that DOT&E may be experiencing with 
contractor support. However, I understand from DOT&E's annual reports 
that its workload has been increasing. For example, the Secretary has 
delegated to DOT&E responsibility to provide oversight of the testing 
of critical equipment, such as body armor, being provided to our forces 
currently deployed in the field. The potential for increased workload 
within DOT&E to implement the Department's revised policies for 
integrated developmental and operational testing also exists because 
those policies require DOT&E to be involved earlier and more 
substantively in planning and monitoring testing. If confirmed, I will 
review DOT&E's current and projected workloads in each of its 
functional areas to determine if shortfalls in manpower exist that 
could be filled either by contractor support or government personnel. 
If shortfalls exist, I would consider whether additional contractor 
support would be the best method to fill them and what type of 
contractor support would be appropriate. However, with the 
consolidation of the Defense industrial base since the Cold War, I 
understand it has become increasingly difficult to identify contractors 
without either real or perceived OCIs.
    Additionally, the provisions of the Weapon Systems Acquisition 
Reform Act regarding OCIs (which I strongly support) could make 
identifying such contractors even more difficult, requiring greater 
reliance on either government personnel or FFRDCs. Thus, in deciding on 
the best method to fill support shortfalls, I would need to consider 
the extent to which the manpower ceilings currently imposed by law on 
FFRDCs and increasing demand for using that constrained set of 
resources might limit the availability of FFRDC support to DOT&E.
    Question. In your view, does the DOT&E's current workforce 
represent the correct mix between government and contractor personnel?
    Answer. The Secretary has decided that the Department should 
increase its use of government personnel providing in-house expertise 
and rely less on contractors. Moreover, I understand the need for DOT&E 
to deal appropriately with real or perceived OCIs, which also affects 
the mix of government and contractor personnel appropriate for use by 
the office. If confirmed, I will review the balance among DOT&E's 
government personnel and its use of contractors and FFRDCs, in the 
context of the office's future workload, its need to deal appropriately 
with OCIs, and its need to have in-house, government expertise.
    Question. Does the DOT&E need any special personnel authorities, 
such as those available to Defense Advanced Research Project Agency 
(DARPA), medical personnel, service academies, or defense laboratories, 
to attract, recruit, and retain the workforce needed to perform 
designated missions?
    Answer. I am unaware of any special personnel authorities needed by 
DOT&E at this time. If confirmed, I will consider the potential need 
for such authorities in conjunction with reviewing DOT&E's needs for 
both contractor support and government personnel.
                 operational and developmental testing
    Question. What are your views on the appropriate point in concept 
development of a new acquisition program for incorporation of T&E 
planning and integration of testing requirements?
    Answer. The T&E community should be involved with both the 
requirements community and the system developers during early stages of 
the Materiel Solution Analysis to develop an evaluation strategy that 
can be reflected in the request for proposals. These relationships 
should continue during technology development, with emphasis shifting 
to evaluation of competitive prototypes, refinement of T&E strategies, 
and review of technology readiness assessments. During this phase, 
detailed T&E activities should be planned, resourced, and documented in 
a TEMP that is reviewed and approved by both the USD(AT&L) and DOT&E.
    Question. What steps, if any, do you believe the Department should 
take to ensure that testing takes place early enough in the program 
cycle to identify and fix problems before it becomes prohibitively 
time-consuming and expensive to do so?
    Answer. If confirmed, I look forward to working with the 
acquisition community--in particular the new D,DT&E--to develop the 
practices needed to institutionalize the Department's guidance to 
conduct integrated operational and developmental testing. Conducting 
integrated testing as early as possible will foster earlier discovery 
and learning, and less costly correction of the deficiencies that are 
discovered. I also believe that implementing the provision in the 
Weapon Systems Acquisition Reform Act of 2009 requiring the D,DR&E to 
work with the D,DT&E to demonstrate technology readiness prior to 
making major program commitments (that is, before Milestone B) will 
reduce risks. If confirmed, I will seek opportunities to work with 
those two officials to assist them in developing the practices needed 
to implement the act's provision, including incorporating operational 
realism in testing conducted prior to Milestone B.
    Question. Acquisition programs continue to complete developmental 
testing satisfactorily, but perform poorly on operational testing 
suggesting that developmental testing lacks sufficient rigor or realism 
to adequately characterize the technical performance of a system under 
test.
    What are your views on the current relationship between 
developmental and operational testing?
    Answer. Recent changes to testing policy require Integrated 
Testing, which is the collaborative planning and execution of testing, 
with independent evaluation of test data. I believe that with 
Integrated Testing, the operational test community can help add rigor 
and operational realism to developmental T&E. This will help make 
developmental testing a period of discovery and operational testing a 
period of confirmation.
    Question. Do you believe there is value in involving the 
operational T&E community in providing input into developmental testing 
and, if so, at what point should that process begin?
    Answer. I see tremendous value in involving the operational T&E 
community in both developmental testing and requirements generation. I 
applaud the recent Integrated Testing efforts the Department has 
initiated to make testing as seamless as possible throughout the 
acquisition process. It is my understanding that DOT&E played a key 
role in this initiative. The operational T&E community should help make 
early testing as realistic as possible, allowing identification and 
correction of deficiencies earlier in the design process when those 
deficiencies are less expensive to correct.
    Question. When is it appropriate for developmental and operational 
testing to be combined?
    Answer. It is appropriate to combine developmental and operational 
testing when the objectives of both evaluations can be reasonably met. 
This may provide shared data at a reduced cost and on a shorter 
schedule.
          adaptation of t&e to evolving acquisition strategies
    Question. If confirmed, how would you propose to achieve an 
appropriate balance between the desire to reduce acquisition cycle 
times and the need to perform adequate testing and evaluation?
    Answer. It is my understanding the time consumed by operational 
testing is usually only a small percentage of the overall acquisition 
cycle time. Program delays in readying for operational testing usually 
are much longer than the time frame of the operational test itself. 
Because operational testing occurs near the end of the acquisition 
cycle, there can be great pressure to rush such tests. I feel that the 
early involvement of operational testers can contribute to reducing 
cycle time by identifying issues early in the development cycle when 
the problems can be solved with less impact on the program and at less 
cost.
    Question. What requirements and criteria would you propose to 
ensure an effective T&E program is established for an evolutionary 
acquisition program?
    Answer. An evolutionary acquisition strategy requires a T&E process 
incorporating a distinct set of testable objectives for each phase of 
the evolutionary program. If the system resulting from completion of a 
phase will be used in the field, those objectives should be related 
directly and clearly to how operators will use it; that is, to 
operational requirements. In my view, it is very important that the 
progress achieved in completing each phase of an evolutionary 
acquisition program (or, for that matter, of any program) be judged 
based upon rigorous testing incorporating appropriate operational 
realism, not dictated by a pre-set schedule. If a system that results 
from the completion of a particular evolutionary phase is to be 
deployed for use in the field, it should undergo operational testing 
and live-fire testing and evaluation before it is produced and fielded 
in large quantities. An evolutionary T&E process recognizes the results 
of developmental and operational testing conducted for previous spirals 
can be incorporated in testing subsequent spirals, as appropriate, 
thereby potentially reducing the time and effort needed to test later 
spirals. Thus, it is important that provisions be made for archiving 
data resulting from testing each spiral to allow for that data's re-
use.
    Question. Recent equipment problems have brought to light potential 
testing deficiencies resulting from the fielding of systems that fell 
below the thresholds established for oversight by the DOT&E. In many 
cases, such as with body armor, helmets, vehicle armor kits, and 
ammunition, the materiel involved is crucial to the everyday mission 
effectiveness and survivability of our military forces.
    If confirmed, how would you ensure that critical equipment being 
fielded is effective, safe, and suitable for our military to take into 
combat?
    Answer. Title 10, via delegation from the Secretary of Defense, now 
gives the DOT&E authority to designate any program for live-fire T&E 
oversight. I understand that DOT&E is working with the Services to 
compile a list of critical equipment programs that should be made 
subject to oversight under this authority. If confirmed, I would 
complete the compilation of this list and exercise oversight over the 
programs on it to assure critical equipment is adequately tested and 
objectively evaluated for effectiveness, suitability, and 
survivability. I would provide my independent assessments of those 
tests to Congress and the Department's leadership in a timely manner. 
The equipment's safety would be a key criterion determining my 
assessment of its suitability. I would periodically review the list of 
programs placed on this list for completeness and continued need for 
DOT&E oversight and adjust the list, as appropriate.
    Question. What are your views on the testing and evaluation of 
systems under spiral development?
    Answer. I view the needs for effective T&E of systems under spiral 
development as similar to those for effective T&E of an evolutionary 
acquisition program. It is important that systems under spiral 
development have an early T&E strategy and complementary T&E processes 
that identify a distinct set of testable objectives for each spiral. 
Each spiral can then be tested against those objectives and progress in 
development, including whether the program should proceed to the next 
``spiral,'' determined using the results of those tests. As in all 
programs, testing of systems under spiral development should 
incorporate as much operational realism as soon as possible in a robust 
developmental testing program. If a system that results from the 
completion of a particular ``spiral'' of development is to be deployed 
for use in the field, it should undergo appropriate operational testing 
and live-fire testing and evaluation before it is produced and fielded 
in large quantities. The results of developmental (and any operational 
testing) conducted for previous spirals can be incorporated in testing 
subsequent spirals, as appropriate, potentially reducing the time and 
effort required for testing later spirals. Thus, it is important that 
provisions be made for archiving data resulting from testing each 
spiral to allow for that data's re-use.
    Question. Do you believe that follow-on operational testing and 
evaluation should be required for each program spiral?
    Answer. In my view, the significance of the changes made to a 
system's capability should determine the need for follow-on operational 
testing and live-fire testing. Substantial enchancements in combat 
capability would require follow-on operational testing and assessment. 
If follow-on testing is conducted, it should take advantage of data 
collected from testing done for previous spirals, as appropriate.
    Question. How should Service and Agency test organizations project 
future resource requirements given the uncertainty of testing demand 
given urgent operational needs and rapid fielding and development 
initiatives?
    Answer. The Services should integrate resource requirements for T&E 
into their projected program plans for rapid fielding and development 
initiatives. Because resource demands may change rapidly and 
unexpectedly as the size and character of ongoing operations evolves, 
the Services will need to re-evaluate their plans on a continual basis. 
Accomplishing these re-evaluations will require close consultation 
among operators, developers, and the Service Operational Test Agencies. 
If confirmed, I will help facilitate this consultation.
    Question. How will you improve the oversight that the DOT&E has 
over the activities of the Joint Improvised Explosive Device Defeat 
Office, the Intelligence, Surveillance, and Reconnaissance Task Force, 
and other rapid fielding organizations?
    Answer. I regard DOT&E involvement in assisting these organizations 
as a high priority. I believe that DOT&E must provide early advice to 
and conduct continual consultation with these organizations to provide 
oversight that helps--not hinders--the fulfillment of their objectives. 
I understand that DOT&E has established interfaces with these 
organizations and is using those interfaces to oversee their testing 
activities. If I am confirmed, I will review the results of that 
oversight and make adjustments to it, as necessary, in consultation 
with each organization's leadership. The extent to which DOT&E's 
oversight has improved each organization's ability to accurately and 
quickly characterize both the strengths and weaknesses of the 
capabilities they field will be key to determining any changes that may 
be needed.
             combination of testing with training exercises
    Question. Some hold the view that the most representative 
operational testing would be to allow operational forces to conduct 
training exercises with the system under evaluation.
    In your view, should testing be combined with scheduled training 
exercises for efficiency and effectiveness?
    Answer. I believe that testing should be combined with scheduled 
training exercises in selected instances when it is feasible and when 
careful, advance planning can and has been conducted. Combined testing 
and training events can benefit testing through the presence of more 
realistic friendly and threat forces conducting operations in a 
broader, more varied context than would otherwise be the case in 
standalone testing. This additional realism can be used to 
simultaneously exercise modes of equipment operation that might not be 
possible or would be difficult to arrange on test ranges. For example, 
testing combined with joint force training exercises can offer unique 
opportunities to discover interoperability problems. Live, virtual, and 
constructive environments should all offer opportunities for combined 
testing and training.
    Question. What are the barriers, if any, to doing so?
    Answer. There may be differences in the needs and goals of the 
testing and training communities that prevent both groups from 
achieving their objectives with a single event. Synchronizing schedules 
can be a problem, as training events are usually scheduled well in 
advance, and test events, although scheduled in advance, have a history 
of slippage due to development delays. I understand that the test 
community often requires that data be collected using methods not 
normally associated with a training exercise; in some cases those 
methods could be disruptive to achieving training objectives. Combining 
testing and training can also introduce the need to train military 
personnel from the field who are participating in an exercise to 
operate the new equipment under development to be tested while using 
tactics they are unfamiliar with. This can increase the cost and 
complexity of planning and execution for both the testing and training 
communities.
    Question. How can training and testing ranges be used more jointly 
and efficiently?
    Answer. My review of publicly available DOT&E reports indicates 
that the Services frequently share the use of test ranges and other 
testing and evaluation infrastructure. Additionally, those reports 
indicate that testing is often conducted on ranges that are also 
utilized for training. I also understand that there is increasing 
competition for the use of both types of ranges. This trend, in 
conjunction with the concerns expressed in DOT&E's annual reports 
regarding shortfalls in both capability and capacity at the 
Department's testing ranges, indicates that more efficient, joint use 
of both types of ranges is needed whether or not additional resources 
are provided to modernize these ranges. If confirmed, I will work with 
the Service Operational Test Agencies and the Joint Staff to determine 
how test and training ranges can be used more efficiently and jointly 
and make appropriate recommendations.
                     ``system of systems'' testing
    Question. What inherent challenges exist for operational testing 
with regard to DOD programs that are a part of an overall ``system of 
systems''?
    Answer. The large number of individual components of a ``system of 
systems'' and the wide span of military capabilities those components 
provide pose challenges to operational testing. For example, the Army's 
Future Combat Systems (FCS) program was to be composed of 14 individual 
systems (ranging from manned ground vehicles to robotic vehicles to 
unmanned aerial systems) linked together by an information network. 
Considering the network, a realistic operational test would exercise 
all the potential linkages among all fourteen systems simultaneously. 
The information flow across the linkages would be realistic only if it 
were as large as would be expected if all fourteen elements were 
deployed and operating in numbers consistent with their employment in a 
brigade combat team. Testing would need to incorporate the network 
interruptions, dynamic establishment and dis-establishment of 
communications links, and other complications expected during combat in 
complex terrain. Adding consideration of the testing needs for other 
elements of FCS indicates that realistic operational testing of this 
``system of systems'' would present unprecedented challenges in test 
planning, assembly of equipment, training of operators, simultaneous 
presentation of the multiple, disparate threats needed to stress each 
FCS element, and simultaneous collection of multiple flows of data. The 
use of modeling and simulation might mitigate these challenges somewhat 
(the development and verification of the simulations would also be 
complex), but would not eliminate them. These challenges are present in 
testing the BMDS and any other ``system of systems.''
    Question. How should a ``system of systems'' be tested to assess 
the effectiveness of the whole system?
    Answer. Constraints on the environments that can be created in test 
ranges will probably require that operational testing of systems of 
systems comprise a combination of ``open air'' testing of the system's 
components on ranges--alone and in combination--in conjunction with 
modeling and simulation. Careful planning of ``open-air'' tests will be 
required so that selected aspects of the performance of individual 
components can be demonstrated and all the data needed to verify, 
validate, and accredit the models to be used is collected. The 
combination of open-air testing and modeling should be constructed to 
stress and exercise all the system's components under the full set of 
operational conditions to be expected. According to recent testimony to 
Congress by DOT&E, this is the approach that the Director of the 
Missile Defense Agency (MDA) is attempting to use in planning the 
testing conducted on the BMDS ``System of Systems.''
                     testing of information systems
    Question. What are the major unique challenges to the testing of 
information systems?
    Answer. I believe the major challenges to testing information 
systems can be grouped into three areas: interoperability, information 
assurance, and sustainment. The overwhelming majority of the 
Department's information systems are expected to exchange information, 
or network, with a variety of other systems. Development and testing of 
systems that can all be simultaneously evolving poses configuration 
management challenges. For example, a data link system may have to 
operate with an aircraft's mission computer and display systems as well 
as with the decision and display systems in command centers ashore or 
afloat. Second, realistic information assurance testing must account 
for the rapidly maturing and the ever-changing cyber threat. Even with 
a modular architecture, introduction of new software code can 
potentially introduce new system vulnerabilities. Third, the rapid pace 
at which industry has upgraded the commercial hardware and software 
that underpin DOD systems, challenges the Department's ability to 
successfully integrate, test, and field updates.
    Question. What role do you believe DOT&E should play in testing of 
major automated information systems and other enterprise information 
systems?
    Answer. I believe that DOT&E should continue to exercise oversight 
of the testing of major automated information systems and enterprise 
information systems to help ensure that users are delivered the systems 
they need to accomplish their missions around the world. DOT&E should 
ensure that these systems are operationally effective and suitable when 
operated by typical users in an operationally realistic environment. 
Among other considerations, this means that testing should exercise 
under realistic loading all the linkages among these systems expected 
in operational use. According to DOT&E's annual reports, testing of 
linkages between new and legacy systems under realistic loads has a 
history of revealing unanticipated problems; thus, this testing should 
be accomplished as early as possible in the development of these 
systems.
    Question. Are you satisfied with the Department's capabilities to 
test and evaluate information systems, including embedded software?
    Answer. I have not had the opportunity to carefully review all of 
the Department's capabilities to test and evaluate information systems. 
If confirmed, I will review this area carefully to ensure adequate 
testing and evaluation is being performed.
    Question. What role, if any, should commercial sector testing play 
in the Department's testing and evaluation of commercial information 
systems that are being modified to support defense needs?
    Answer. I believe that commercial sector testing can make a 
significant contribution in the overall T&E process. The use of third 
party commercial testing could be particularly useful in development, 
where it might offer test resources that are not available within the 
Department.
    Question. Recent defense authorization legislation provided the 
DOT&E with oversight responsibility for information assurance (IA) 
evaluations of fielded systems. There has reportedly been an increased 
focus on IA as an evaluation issue for systems on the operational T&E 
oversight list and a group of acquisition programs have been identified 
for an expanded review of the adequacy of IA evaluation planning.
    Does the T&E community of the Department possess adequate 
expertise, staffing, and funding to carry out its IA responsibilities?
    Answer. I currently do not have sufficient insight into the 
information assurance capabilities of the T&E community to provide an 
accurate and objective assessment of the adequacy of those 
capabilities. I am concerned, however, that the same trends in funding 
and policy that led Secretary Gates to direct that additional 
government civilian employees be hired might have adversely affected 
the government's T&E workforce overall, as well as in this particular 
area. The adequacy of the Department's expertise and staffing in 
information assurance is of particular concern to me because of the 
competition for people with these skills across the government, as well 
as in the private sector. If confirmed, I will examine this issue 
carefully in order to make an informed assessment and recommendation.
    Question. What are the major challenges that you see in operational 
testing of information assurance systems?
    Answer. My impression is that there are two related challenges in 
the operational testing of information assurance for both development 
and fielded systems. For systems in development, a key challenge is to 
adequately emulate the operational environment in a secure test 
facility so that developers can assess the system's performance when it 
is exposed to realistic, sophisticated threats. For fielded systems, 
significant operational and security challenges arise in portraying 
realistic threats against live systems on networks being used for 
operational and training missions.
                           live-fire testing
    Question. The live-fire testing program is a statutory requirement 
to assess the vulnerability and survivability of platforms, while also 
assessing the lethality of weapons against the required target sets.
    Do you believe that the Department's current live-fire testing 
program is accomplishing its purpose?
    Answer. I believe so. The recent testing of the Mobile Gun System, 
mine resistant ambush protected (MRAP) vehicles, and Body Armor 
overseen, assessed, and independently reported by DOT&E illustrate the 
value of robust live-fire testing. DOT&E reports also indicate live-
fire testing plays an important role in assessing a system's overall 
effectiveness and suitability.
    Question. What are the major challenges facing the live-fire 
testing program?
    Answer. I believe that conducting adequate testing early enough to 
improve a system's design without the need for costly changes and 
retrofits is a key challenge for both operational testing, as well as 
live-fire testing. Specific examples of challenges related to live-fire 
testing of which I am aware appear in the DOT&E annual report. That 
report expresses a concern with the elimination of vulnerability 
reduction features on the Joint Strike Fighter made to reduce weight 
during trade space analysis conducted on the aircraft's systems. If 
this reaction to weight growth in aircraft design foreshadows a more 
widespread trend, it would be extremely troubling. Similarly, I 
understand that full-ship shock trials of Navy ships are increasingly 
constrained by environmental considerations.
    Question. What is the Department's role, if any, in the research, 
development, and acquisition process with respect to live-fire testing 
for Preliminary Design Model tests, First Article Tests, and Lot 
Acceptance Tests?
    Answer. The Department's role in these tests normally associated 
with Personal Protection Equipment varies by the nature of the test. 
Preliminary Design Model tests, typically utilized to screen viable 
systems before making contract awards, are a responsibility of the 
acquisition or program manager. In my view, First Article Testing is 
inherently governmental, as it qualifies a design and leads to full 
rate production contracts and fielding of equipment. The authorities 
contained in 2009 National Defense Authorization Act enable the 
Department to exercise oversight of this testing in a manner similar to 
the DOT&E authorities for operational testing. Lot Acceptance Testing 
is in many respects an extension of First Article Testing, in that it 
supports the acquisition of specific lots of the design qualified in 
First Article Testing. In my view, government oversight of these tests 
should focus on ensuring that common standards are used to conduct 
them.
    Question. Is live-fire testing to determine if weapons systems, 
vehicles, or personal protective equipment meets military and contract 
specifications for procurement an inherently governmental function, a 
function that can be outsourced, or a function that can use a mix of 
government and commercial facilities?
    Answer. I believe testing that leads to production decisions is 
inherently governmental and should be conducted by the Services at 
government facilities. This is the norm and typically a requirement for 
all major acquisition programs. This fundamental practice should also 
be applied to critical personal equipment such as body armor and 
helmets. The Services must be provided sufficient resources to conduct 
this level of testing. I note the recent Army policy letter that 
requires all body armor testing to be conducted by their operational 
test agency. This is a reasonable policy and does allow for the use of 
commercial facilities if needed for subsequent lot testing. I agree 
with the recent report by the defense Inspector General that documented 
the need for adequate government oversight if testing is conducted at 
commercial facilities.
                        modeling and simulation
    Question. Advances in modeling and simulation have provided an 
opportunity to streamline the testing process, saving time and expense.
    What do you believe to be the proper balance between modeling and 
simulation and actual testing of the developed product?
    Answer. Modeling and Simulation (M&S) can contribute to the 
assessment of system performance, particularly to explore the full 
range of system operation where live, ``open-air'' testing would be 
unsafe or is impractical. M&S is also useful as a tool to help plan the 
test program. However, M&S should be utilized to complement, rather 
than replace, operational testing in a realistic environment. 
Additionally, sufficient operational testing should still be performed 
to adequately validate and accredit any models used. This is often the 
greatest challenge.
    Question. Are there areas in modeling and simulation that need to 
be advanced in order to improve its utility as a tool for operational 
and developmental testing?
    Answer. I am not aware of any specific areas at this time. However, 
if I am confirmed I will review the use of modeling and simulation in 
operational testing and make recommendations for improvements to the 
testing community, as appropriate.
                       t&e science and technology
    Question. What are your views on the appropriate level of 
investment in the science and technology (S&T) of testing?
    Answer. I believe strongly in the need for a robust S&T effort to 
support T&E. This effort should be a part of and consistent with the 
overall S&T investment strategy of the Department.
    Question. What mechanisms will you employ to ensure the S&T 
portfolio is responsive to the Department's future test instrumentation 
needs?
    Answer. If confirmed, I look forward to working with the USD(AT&L) 
and his subordinate organizations, such as the Director of the TRMC, to 
ensure that the projects funded in the S&T portfolio support the 
Department's future instrumentation needs. I am particularly interested 
in assuring that the S&T program supports the development and fielding 
of embedded instrumentation that can be used by testers, trainers, and 
operator maintainers. Therefore, I would work with AT&L to develop 
alternatives that provide adequate resources for the associated S&T 
activities as part of the development of the FYDP.
    Question. What areas should the Department's S&T program be 
investing in to improve the quality of current and future testing 
capabilities?
    Answer. The emerging concepts the Department is pursuing involving 
urban operations, directed energy, chem-bio, chemical weapons effects, 
hypersonics, netcentric systems, and unmanned/autonomous systems will 
all likely require advances in test range instrumentation and other 
capabilities for conducting both developmental and operational testing. 
The need for these advances may already be included in the TRMC's 
strategic plan for the Department's T&E resources. If confirmed, I 
would work closely with the Director of TRMC in this area.
                       operational test agencies
    Question. Operational Test Agencies (OTAs) are tasked with 
conducting independent operational testing and evaluation of 
acquisition programs. Recent demands on these organizations have 
increased to meet rapid acquisition initiatives, to demonstrate joint 
and advanced concept technology programs, and to evaluate information 
assurance, information operations, and joint T&E requirements.
    In your view, are these agencies sufficiently staffed to perform 
the required functions?
    Answer. I am not aware of any specific staffing shortfalls at this 
time. I am concerned, however, that the long-term trends that caused 
Secretary Gates to direct that the government workforce be increased, 
in conjunction with increasing workload, may have created shortfalls. 
If confirmed, this is an area that I will explore in greater detail.
    Question. How would you propose to arbitrate shortfalls between 
program managers' limited funding and OTAs independent test 
requirements?
    Answer. Title 10 and DOD Directives require DOT&E to assess the 
adequacy of operational testing. Service leadership retains the 
responsibility to ensure programs are managed and funded to meet 
testing requirements. If confirmed, I will only approve TEMPs and test 
plans that are executable within available resources.
    Question. Do you have any concerns about the independence of the 
OTAs?
    Answer. There will always likely be concerns regarding the 
independence of the OTAs. If confirmed, I will be vigilant to protect 
their independence. I believe that the OTAs should report to the top of 
their Service leadership, independent of the Service acquisition 
organizations.
    Question. Should policies and procedures of the OTAs be 
standardized across DOD?
    Answer. Each of the component OTAs has processes for the conduct of 
OT&E that are tailored to their organizational construct and the kinds 
of systems they must evaluate. As long as these processes lead to 
robust operational T&Es, I do not believe DOT&E should dictate standard 
processes that may limit component flexibility. I do, however, believe 
the capability to develop, test, train, and experiment with complex 
systems in a Joint operational environment needs improvement. If 
confirmed, I will work with the combatant commands, Joint Forces 
Command, Service Leadership, and the component OTAs to improve our 
abilities to test and evaluate in a realistic joint operational 
environment and make appropriate recommendations for any changes needed 
in policies and procedures.
                       ballistic missile defense
    Question. The United States is developing and fielding a BMDS that 
is intended to defend the United States, its allies, and friends 
against rogue nation ballistic missiles of all ranges in an 
operationally effective and cost-effective manner.
    Can you assure the committee that, if confirmed, you will evaluate 
the testing of the BMDS, and that you will make a determination of 
whether the system and its elements that are tested are effective, 
survivable, and suitable for combat?
    Answer. Yes. DOT&E provides an annual report covering all DOD 
oversight programs, including the BMDS, as well as a separate annual 
assessment report of the BMDS to Congress. If confirmed, I will 
continue to assess BMDS system operational effectiveness, suitability, 
and survivability and test adequacy in these reports.
    Question. If you determine that such testing and evaluation is not 
adequate, or does not demonstrate that the BMDS or its elements are 
effective and suitable, or survivable, will you inform Congress of that 
determination?
    Answer. Yes. If confirmed, I will provide my frank and objective 
assessments of test adequacy and BMDS system and element effectiveness, 
suitability, and survivability.
    Question. According to title 10, U.S.C., Major Defense Acquisition 
Programs are required to complete Initial OT&E before proceeding beyond 
low-rate initial production. This is to ensure that weapons systems 
work effectively before they are produced in large numbers and at great 
expense. DOD had previously exempted the BMDS from this requirement, 
saying that there will be only one BMDS, and thus no question of 
proceeding beyond low-rate initial production. There were also no plans 
or requirements for operational test and valuation of the BMDS or its 
elements.
    Do you believe that any BMDS we deploy should be operationally 
effective, suitable, and survivable?
    Answer. Yes. I believe that the MDA and operational test community 
should demonstrate through rigorous testing and verified, validated, 
and accredited modeling and simulation, that the elements to be 
deployed are operationally effective, suitable, and survivable.
    Question. Do you believe that the BMDS and its elements should 
undergo operational T&E?
    Answer. Yes. As with all major defense acquisition programs, I 
believe that the BMDS and its elements should undergo operational T&E 
to demonstrate its capabilities. This is particularly true given the 
strategic importance of the BMDS. Independent operational testing 
should be included in the overall program and should occur once the 
incremental development of a given element or group of elements has 
been completed.
    Question. What do you believe is the appropriate role for the 
office of the DOT&E in providing an independent and objective 
assessment of the operational effectiveness, suitability, and 
survivability of the BMDS?
    Answer. I believe it is the role of DOT&E to ensure adequate test 
planning, oversee the conduct of testing in accordance with approved 
test plans, independently assess the operational effectiveness, 
suitability, and survivability of the BMDS using all relevant and 
appropriate test data, and report our findings to the congressional 
defense committees and the Secretary of Defense.
                       master test plan for bmds
    Testing and evaluation of Major Defense Acquisition Programs is 
normally implemented according to a TEMP, which must be approved by the 
DOT&E. However, this has not been the case for the Ballistic Missile 
Defense System or its elements.
    Do you believe that the T&E of the BMDS and its elements should be 
implemented according to a TEMP, or its equivalent, and that this plan 
should include such features as goals and objectives, methodologies, 
criteria for evaluation, planned infrastructure, and schedule?
    Answer. Yes. Historically, well-prepared and resourced TEMPs have 
not only promoted disciplined testing of the Department's acquisition 
programs but also fostered successful assessments of operational 
effectiveness, suitability, and survivability. In 2002, the Secretary 
of Defense relieved the MDA from the requirement to produce a TEMP for 
the BMDS. Instead, the Agency has produced a similar document known as 
an Integrated Master Test Plan (IMTP). It is my understanding that 
Agency's IMTP does contain such features as goals and objectives, 
methodologies, criteria for evaluation, planned infrastructure, and 
schedule.
                     ground-based midcourse defense
    Question. Concerning the Ground-based Midcourse Defense (GMD) 
system, the DOT&E annual report for 2008 states that, ``GMD flight 
testing to date will not support a high degree of confidence in its 
limited capabilities.''
    Do you agree that our objective should be to have a high degree of 
confidence in the capabilities of the GMD system, and do you believe 
that our T&E program for the GMD system should be designed and 
implemented to provide a high degree of confidence in the system?
    Answer. Yes. I believe that it is essential that operational 
decisionmakers have the greatest possible understanding of the 
capabilities and limitations of the GMD system, as well as the entire 
BMDS. In particular, those decisionmakers need high confidence in the 
accuracy of the performance estimates that underpin the determination 
of those capabilities and limitations.
    Question. Do you agree that it is essential to conduct testing of 
the GMD system that will allow the validation, verification, and 
accreditation of the models and simulations necessary to predict and 
understand the performance of the system?
    Answer. Yes. Modeling and simulation, anchored by a robust program 
of flight and ground testing, and exercised over the battlespace using 
operationally realistic threat, mission scenario, and environmental 
models, is necessary to develop high confidence assessments.
    Question. The January 2009 DOT&E ``2008 Assessment of the BMDS'' 
states that, for the GMD system, ``all intercepts have occurred within 
a small portion of the threat battlespace and under nearly the same 
intercept conditions.'' It also reports that the GMD system ``has not 
demonstrated interceptor performance in a salvo defense (multiple 
interceptors against a single target) or in a multiple simultaneous 
engagement (multiple interceptors against multiple targets) in a flight 
test.''
    Do you agree that flight testing for the GMD system needs to be 
rigorous and operationally realistic, in order to demonstrate 
capability in a more representative portion of the possible operational 
conditions?
    Answer. Yes. I believe there should be robust, operationally-
realistic testing of, not only the GMD, but all the constituent 
elements of the BMDS, so that we fully understand the systems' 
capabilities and limitations. The modeling and simulation used to 
evaluate the full capabilities of the BMDS must be verified and 
validated before the BMDS OTA Team can accredit it for use in assessing 
BMDS performance. The flight test program must be carefully designed to 
collect the required performance data that can then be used to verify 
and validate the models and simulations.
    Question. Do you agree that the system testing should include such 
operationally realistic features as salvo testing, multiple 
simultaneous engagement testing, and an intercept test using the Cobra 
Dane radar as the operational sensor, if possible?
    Answer. Yes. I support previous DOT&E recommendations and testimony 
to the Defense Committees that the MDA should perform salvo testing and 
multiple simultaneous engagement testing of the GMD. I also support the 
proposal to conduct a GMD intercept test using the Cobra Dane radar as 
the operational sensor; however, I understand General O'Reilly has 
testified that there are unique challenges associated with the need to 
conduct such a test from within or nearly adjacent to the Russian 
Flight Information Region. If an intercept test is not feasible, 
alternatives, such as a target fly-by, should be investigated.
                          medical technologies
    Question. What role should the DOT&E play in the testing and 
evaluation of medical technologies such as combat casualty care 
technologies, drugs, vaccines, and other medical technologies before 
their operational use by DOD?
    Answer. I understand DOT&E has been overseeing the operational T&E 
of automated information systems that support medical care delivery, 
such as the Composite Health Care System, the Armed Forces Health 
Longitudinal Technology Application, and the Theater Medical 
Information Program. I believe that this is an appropriate role. On the 
other hand, medical technologies such as combat casualty care 
technologies, drugs, and vaccines are highly specialized and clinical 
in nature. The T&E of these medical technologies is probably better 
suited for specially trained medical professionals with expertise in 
this area. I am not aware that DOT&E has this expertise.
                 encroachment and environmental issues.
    Question. As is the case with military training, DOD T&E efforts 
can be hampered by encroachment and constrained by environmental 
regulations, both on land and at sea.
    To what extent do you believe encroachment and environmental 
requirements on and around T&E ranges are affecting the quality and 
quantity of DOD's T&E programs?
    Answer. I understand the importance of these issues. Based on the 
recent DOT&E Annual Reports and other reports to Congress, it appears 
that the Department has been able to conduct its test operations 
adequately while making compensating adjustments to address 
environmental issues where necessary. However, those reports also raise 
concerns regarding limitations that testing is experiencing due to 
encroachment and other related problems. If confirmed, I will monitor 
this area carefully.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the DOT&E?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Dr. J. Michael Gilmore 
follows:]
                    Nomination Reference and report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 1, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    J. Michael Gilmore of Virginia, to be Director of Operational Test 
and Evaluation, vice Charles E. McQueary.
                                 ______
                                 
    [The biographical sketch of Dr. J. Michael Gilmore, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Dr. J. Michael Gilmore
     Dr. Gilmore has served most recently as the Assistant Director for 
National Security within the Congressional Budget Office (CBO). In that 
capacity he was responsible for CBO's National Security Division, which 
performs analyses of major policy and program issues in national 
defense, international affairs, and veterans affairs.
    His previous government employment includes serving within the 
career Senior Executive Service in the Office of the Secretary of 
Defense, first as leader of a division performing independent cost 
analyses of defense acquisition programs, and later as the Deputy 
Director for General Purpose Programs within the Office of Program 
Analysis and Evaluation (PA&E). In the latter position, Dr. Gilmore was 
responsible for developing, formulating, and implementing Secretary of 
Defense policies on all aspects of Department of Defense general 
purpose programs, including analyzing the operational effectiveness and 
costs of U.S. conventional military forces and supporting programs.
    Dr. Gilmore also served within PA&E as an analyst for command, 
control, and communications programs, as well as missile defense 
programs. Prior to his government service, Dr. Gilmore worked as a 
Defense Department contractor, analyzing the effectiveness of missile 
defense and command and control programs for the McDonnell Douglas 
Corporation and later at Falcon Associates in McLean, VA. Dr. Gilmore 
has also worked as a scientist conducting research on fusion energy at 
Lawrence Livermore National Laboratory.
    He holds a Ph.D. and M.S. in nuclear engineering from the 
University of Wisconsin and a B.Sc. in physics from the Massachusetts 
Institute of Technology.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. J. Michael 
Gilmore in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Michael Gilmore.

    2. Position to which nominated:
    Director, Operational Test and Evaluation.

    3. Date of nomination:
    June 1, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 24, 1954; Richmond, VA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ai-Chi Liu.

    7. Names and ages of children:
    Christopher Kenneth Gilmore, born June 6, 1988.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    09/1976-12/1980, University of Wisconsin-Madison, Ph.D. in Nuclear 
Engineering, 12/80.
    09/1972-05/1976, Massachusetts Institute of Technology, B.Sc. in 
Physics, 05/1976.
    09/1968-06/1972, Salem Senior High School (Salem, OH), Diploma, 06/
1972.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    09/2001-Present: Assistant Director for National Security, 
Congressional Budget Office, Second and D Streets SW, Washington, DC.
    11/1994-09/2001: Deputy Director for General Purpose Programs, 
Office of the Director, Program Analysis and Evaluation, Office of the 
Secretary of Defense, 1800 Defense Pentagon, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    01/1993-11/1994: Division Director, Office of Deputy Director for 
Resource Analysis, Office of the Director, Program Analysis and 
Evaluation, Office of the Secretary of Defense, 1800 Defense Pentagon, 
Washington, DC.
    05/1990-01/1993: Operations Analyst, Office of the Deputy Director 
for Strategic Programs, Office of the Director, Program Analysis and 
Evaluation, Office of the Secretary of Defense, 1800 Defense Pentagon, 
Washington, DC.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Presidential Rank Award--Meritorious Executive in 1998.
    Secretary of Defense Medal for Meritorious Civilian Service in 
1996.
    Secretary of Defense Medal for Distinguished Civilian Service in 
2001.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    A.A. Mirin, S.P. Auerbach, R.H. Cohen, J.M. Gilmore, L.D. 
Pearlstein and M.E. Rensink, ``Radial Transport Calculations for Tandem 
Mirrors,'' Nucl. Fusion 23 (1983), 703.
    S.P. Auerbach, R.H. Cohen, J.M. Gilmore, A.A. Mirin and M.E. 
Rensink, ``Plasma Transport Caused by Ion-Neutral Atom Collisions-I. 
Slab Model,'' Nucl. Fusion 24 (1984), 1251.
    ``Federal Budget Trends and the Outlook for the Defense Program'' 
in Defense Strategy and Forces: Setting Future Directions, Proceedings 
of the Ruger Workshop, 13-15 November 2007, Naval War College, Newport, 
RI.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have delivered no formal speeches, however I have participated in 
a number of panel discussions and have given presentations and 
briefings regarding defense programs and budgets. I have also testified 
before congressional committees regarding CBO's work on defense issues. 
Below is a list of my testimony before Congress and Commissions:

          ``CBO Testimony: The 2009 Future Years Defense Program: 
        Implications and Alternatives,'' Hearing before the Committee 
        on the Budget, U.S. House of Representatives, February 4, 2009.
          ``CBO Testimony: The Navy's 2008 Shipbuilding Plan and Key 
        Ship Programs,'' Hearings before the Subcommittee on Seapower 
        and Expeditionary Forces, Committee on Armed Services, U.S. 
        House of Representatives, July 24, 2007.
          ``CBO Testimony: The Navy's DD(X) Destroyer Program,'' 
        Hearings before the Subcommittee on Projection Forces, 
        Committee on Armed Services, U.S. House of Representatives, 
        July 19, 2005.
          ``CBO Testimony: Issues That Affect the Readiness of the Army 
        National Guard and Army Reserve,'' Hearing before the 
        Commission on the National Guard and Reserves, May 16, 2007.
          ``CBO Testimony: The Army's Future Combat Systems Program,'' 
        Hearings before the Subcommittee on Tactical Air and Land 
        Forces, Committee on Armed Services, U.S. House of 
        Representatives, April 4, 2006.
          ``CBO Testimony: Potential Costs of the Navy's 2006 
        Shipbuilding Plan,'' Hearings before the Subcommittee on 
        Projection Forces, Committee on Armed Services, U.S. House of 
        Representatives, March 30, 2006.
          ``CBO Testimony: Estimating the Costs of Military Operations 
        in Iraq,'' Hearing before the Committee on the Budget, United 
        States Senate, February 6, 2007.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                J. Michael Gilmore.
    This 8th day of June, 2009.

    [The nomination of Dr. J. Michael Gilmore was reported to 
the Senate by Chairman Levin on August 4, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 21, 2009.]
                              ----------                              

    [Prepared questions submitted to Zachary J. Lemnios by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Director of Defense Research and Engineering (DDR&E)?
    Answer. The DDR&E is the principal staff advisor to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) and to the Secretary and Deputy Secretary of Defense for 
Research and Engineering matters. The DDR&E serves as the Chief 
Technology Officer (CTO) for the Department of Defense (DOD).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 30 years of professional experience as an 
engineer. During my career, I have served in both industry and 
government, and am currently in an academic laboratory. I have also 
served on many Defense Science Boards and other advisory committees. If 
confirmed, I believe that my background and experience will enable me 
to discharge the DDR&E's responsibility to develop technologies that 
enhance the operational capabilities required by our armed forces.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the DDR&E?
    Answer. I believe that I have the necessary background, skills, and 
ability to perform the duties of the DDR&E.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense will assign to you?
    Answer. If confirmed, I expect the Secretary to assign me duties 
and functions commensurate with those of a CTO, and any others as he 
may deem appropriate.
                             relationships
    Question. Section 139a of title 10, U.S.C., and DOD Directive 
5134.3 discuss the responsibilities and functions of the DDR&E. Other 
sections of law and traditional practice also establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the DDR&E with the following:
    The Deputy Secretary of Defense.
    Answer. If confirmed, I will work closely with the Deputy Secretary 
to provide advice and assistance commensurate with the role of a CTO, 
including rapidly transitioning technology to the field, prioritizing 
science and technology (S&T) investment funding levels, and enhancing 
current and future military capabilities.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The DDR&E is subject to the authority, direction, and 
control of the USD(AT&L). If confirmed, I expect to provide the Office 
of USD(AT&L) with technology insight and leadership across the research 
and engineering community.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I will work to foster a close working 
relationship with the Under Secretary of Defense for Intelligence to 
ensure our research and engineering needs are synchronized across the 
Department. I believe intelligence on potential adversary capabilities 
is important for sharing among the defense programs.
    Question. The Under Secretary of Defense (Comptroller/Chief 
Financial Officer) (USD(C/CFO)).
    Answer. If confirmed, I will work closely with the USD(C/CFO) to 
ensure investment in research and engineering meets the overall 
priorities of the Department.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I will work to foster a close working 
relationship with the Under Secretary of Defense for Personnel and 
Readiness to ensure the current and future research and engineering 
workforce priorities are balanced across the Department, and to ensure 
that technologies necessary for the readiness of our forces are in the 
DOD portfolio.
    Question. The Service Secretaries.
    Answer. If confirmed, I will work to foster a close working 
relationship with the Service Secretaries to ensure their research and 
engineering priorities and technology investments are supporting the 
overall Department goals and are in balance.
    Question. The Service Acquisition Executives.
    Answer. Research and Engineering is the first step in the overall 
acquisition process, so I view the Service Acquisition Executives as a 
primary customer of defense research and engineering. If confirmed, I 
will work closely with the Service Acquisition Executives on research 
and engineering matters to provide technology leverage for their 
missions.
    Question. The Service Science and Technology Executives.
    Answer. The Service S&T Executives are responsible for developing 
and executing the programs for their respective Service. If confirmed, 
I intend to provide technical insight and work closely with them to 
ensure the overall DOD S&T investment is coordinated and provides the 
best possible payoff for taxpayer investment.
    Question. The Directors of Department of Defense Laboratories and 
Research Centers.
    Answer. If confirmed, I intend to work closely with the Directors 
of Defense Laboratories and Research Centers to provide them with the 
necessary resources to deliver technology in support of DOD needs. I 
also believe it is the responsibility of the DDR&E to establish 
standards for lab performance.
    Question. The Director of the Defense Advanced Research Projects 
Agency (DARPA).
    Answer. If confirmed, I will work closely with the Director of 
DARPA to ensure that DARPA continues to open new technical fields and 
create new technologies that have a profound impact on national 
security.
    Question. The Director of the Defense Threat Reduction Agency.
    Answer. If confirmed, I will work with the Director of the Defense 
Threat Reduction Agency on research and engineering matters pertaining 
to weapons of mass destruction.
    Question. The Joint Staff.
    Answer. Research and Engineering provides new operational 
capability options to the warfighter. I view the Joint Staff as another 
primary customer of research and engineering products. If confirmed, I 
will work closely with the Joint Staff on issues relating to research 
and engineering with the goal of understanding the requirements process 
and specific capability needs in order to ensure our warfighters are 
affordably equipped with superior warfighting capabilities.
    Question. The Director, Defense Test Resource Management Center.
    Answer. If confirmed, I will work with the Director, Defense Test 
Resource Management Center to consider technology options and alternate 
procedures for enhancing the test and evaluation of DOD systems.
    Question. The Director, Operational Test and Evaluation (OT&E).
    Answer. If confirmed, I will work with the Director, OT&E to 
consider technology options and alternate procedures for enhancing the 
test and evaluation of DOD systems.
    Question. The Director of the Joint Improvised Explosive Device 
Defeat Office.
    Answer. If confirmed, I will work with the Director of the Joint 
Improvised Explosive Device Defeat Office to identify technical and 
system solutions for defeating current threats and countering future 
anticipated threats.
    Question. The Assistant Director of Defense for Networks and 
Information Integration.
    Answer. If confirmed, I will work closely with the Assistant 
Director of Defense for Networks and Information Integration to ensure 
enhanced communication and network capabilities and cyber protection.
    Question. The Director of the Business Transformation Agency.
    Answer. If confirmed, I will work with the Director of the Business 
Transformation Agency on issues regarding research and engineering 
business practices and efficiencies.
    Question. The Director of the White House Office of Science and 
Technology Policy.
    Answer. If confirmed, I will work closely with the Director of the 
White House Office of Science and Technology Policy to ensure DOD 
research and engineering goals and priorities are aligned with the 
administration's goals and priorities.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the DDR&E?
    Answer. The first major challenge is to preserve the technological 
edge of current U.S. forces, by extending the capabilities of our 
warfighting systems--through better intelligence, greater speed, longer 
range, higher precision, and more effectiveness. The second major 
challenge is to identify breakthrough capabilities, allowing the U.S. 
to leapfrog potential adversaries. Finally, the third major challenge 
is to provide a hedge against an uncertain future via a set of 
scientific and engineering options that provide technological depth to 
U.S. capabilities and deterrence against strategic surprise.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will develop plans that address these 
challenges by enhancing the capability of defense S&T to deliver to the 
warfighter and to the American taxpayer technologies and systems that 
provide increased agility or the ability to adapt to changing 
applications and environments, the ability to scale flexibly with 
demand, and the ability to react faster than adversaries with minimal 
support and logistics infrastructure.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Office of the DDR&E?
    Answer. I do not believe I can fairly answer this question from my 
current vantage point.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I do not believe I can fairly answer this question from my 
current vantage point, but if confirmed, I will develop a plan to 
assess any problems that may exist and then implement actions to 
correct them.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the DDR&E?
    Answer. If confirmed, I will work with the USD(AT&L) and the Joint 
Chiefs of Staff to more fully understand the technology opportunities 
and needs of the warfighter and Department Acquisition Programs. In 
general, I would expect the priorities would be consistent with the 
priorities defined by Defense Secretary Gates in the last two budget 
cycles. Last year, the Secretary specifically directed an increase in 
spending for Defense Basic Research, and has indicated this remains a 
priority. I would expect the other broad priorities would be consistent 
with the three priorities laid out by the Secretary in his April 2009 
budget rollout speech. In that speech, the Secretary said DOD would:

          1. Take care of our people.
          2. Develop capabilities to fight today's war and prepare for 
        future wars.
          3. Reform the way we acquire weapons systems.

    If confirmed, I would expect my priorities to be consistent with 
these broad priorities of Secretary Gates.
    Question. What defense technologies do you consider the highest 
priorities for development in order to enhance DOD's ability to 
prosecute its designated missions?
    Answer. In general, I believe it is difficult to provide a single 
list of technologies that have ``highest priority.'' It has been my 
experience that an effective S&T program balances near and long term 
activities and balances incremental change with revolutionary 
technologies. The highest priorities should develop or deliver a 
capability advantage for our deployed forces. During my two tours at 
DARPA, I saw significant technologies such as the internet, unmanned 
aerial vehicles, stealth, and others emerge from DOD investments in 
advanced technologies. Prospectively, I believe we should understand 
where the state-of-the-art is in science, and understand how to apply 
these technologies, and create opportunities through investment.
    Question. What will be your strategy for developing these 
technologies in a manner to support needed defense capabilities in a 
timely and cost effective way?
    Answer. If confirmed, I will look at all available strategies and 
evaluate them against the constraints of being timely and cost 
effective.
                  investment in science and technology
    Question. If confirmed, what metrics will you use to assess the 
size and portfolio of investments made under the defense S&T program?
    Answer. Determining a sufficient level of S&T investment is not a 
precise science; rather, it is a strategic decision. The goal should be 
to fund S&T at a level adequate to ensure the technological superiority 
of our armed forces. A strong S&T program is required to provide 
options for responding to a full range of military challenges both 
today, and into the future.
    Question. What role should the DDR&E play in the detailed 
development and coordination of service and agency S&T investment 
strategies, programs, and budgets?
    Answer. Each Service and agency has a responsibility to plan, 
program, and execute S&T programs to meet their specific component's 
needs. The DDR&E should provide investment and management guidance that 
integrates Service and agency efforts to provide a full spectrum of DOD 
capabilities. Each of the Services' and agencies' S&T programs should 
leverage and complement each others' efforts.
    Question. What, in your view, is the role and value of S&T programs 
in meeting the Department's transformation goals and in countering 
irregular, catastrophic, traditional, and disruptive threats?
    Answer. The Department's investment in S&T develops the 
technological foundation necessary for our modernization effort, and 
fosters the development of ``leap ahead'' technologies that produce 
transformational capabilities on our terms. DOD must continue to invest 
broadly in defense-relevant technologies as a hedge against 
technological surprise and as a counter to future threats.
    Question. Are there any S&T areas that you view as underfunded by 
the Department?
    Answer. I do not know of any S&T areas that are underfunded. If 
confirmed, I will perform an assessment of the entire DOD S&T 
portfolio, and make an assessment at that time.
    Question. In your judgment, will the funding levels in these areas 
affect the Department's ability to meet the threats of the future?
    Answer. I am not aware of any specific science or technology areas 
that are underfunded.
    Question. Do you feel that the Department's current S&T investment 
strategy strikes the appropriate balance between funding innovative, 
disruptive technologies and addressing near-term operational needs and 
military requirements?
    Answer. A strong S&T program is required to provide options for 
responding to a full range of military challenges both today, and into 
the future. DOD must continue to invest broadly in defense-relevant 
technologies and strive for a balance between high-risk/high-payoff, 
disruptive technologies, and technologies that address near term 
operational needs. I know that the Department is making investments in 
both these areas and, if confirmed, I will make an assessment of the 
balance.
                             basic research
    Question. A 2005 National Academy of Sciences study entitled 
Assessment of Department of Defense Basic Research noted that ``the 
need for discovery from basic research does not end once a specific use 
is identified, but continues through applied research, development, and 
operations stages. . . . DOD should view basic research, applied 
research, and development as continuing activities occurring in 
parallel, with numerous supporting connections throughout the process. 
. . . Senior DOD management should support long-term exploration and 
discovery and communicate this understanding to its research 
managers.''
    Given the continuing nature of basic research and the broad 
implications and applications of discovery-focused and innovation-
focused sciences, what criteria would you use, if confirmed, to measure 
the success of these programs and investments?
    Answer. The potential rewards of basic research are generally long-
term, and hence short-term quantitative metrics are difficult to apply 
effectively. If confirmed, I will evaluate success on the quality of 
the researchers and the research we are able to attract to our 
programs, and how DOD-sponsored research guides, influences, and is 
influenced by the scientific and engineering fields in which it 
invests. With the input of the universities, laboratories, and 
independent expert panels, I expect to establish guidance in scientific 
priorities for the Department's basic research activities.
    Question. If confirmed, how would you determine whether there is an 
adequate investment in basic research to develop the capabilities the 
Department will need in 2020?
    Answer. It is not easy to accurately gauge the adequacy of 
investment in basic research, given the uncertainty of the results and 
its long term nature. However, because of basic research's amply 
demonstrated transformative potential in the Nation's warfighting 
capabilities, I believe that the DOD should remain a major contributor 
to the Nation's basic science activities. This is consistent with the 
stated policy of Secretary Gates to strengthen Defense Basic Research.
    Question. The National Academies study also found that ``A recent 
trend in basic research emphasis within DOD has led to a reduced effort 
in unfettered exploration, which historically has been a critical 
enabler of the most important breakthroughs in military capabilities.''
    If confirmed, what steps, if any, will you take to address this 
concern?
    Answer. If confirmed, I will direct the Director of Under Secretary 
of Defense (Laboratories and Basic Sciences) to study and report to me 
on the state of scientific exploration under DOD basic research, and if 
the flexibility of scientific research has been unduly hampered.
    Question. The JASON 2008 study ``S&T for National Security'' 
observed that:

        <bullet> ``DOD is not adhering to its own definition of basic 
        research in its use of 6.1 funds''
        <bullet> ``Basic research funding is not exploited to seed 
        inventions and discoveries that can shape the future. . .''
        <bullet> ``The portfolio balance of DOD basic research is 
        generally not critically reviewed by independent, technically 
        knowledgeable individuals''

    Have you reviewed the findings of the JASON study?
    Answer. I have read the JASON study, but if confirmed, I plan to 
review it in detail against the broad context of basic research across 
the Department.
    Question. If confirmed, what steps, if any, will you take to 
address the concerns raised by the JASON review?
    Answer. I believe in the importance of basic research to the DOD 
mission and if confirmed, I will carefully review the JASON study and 
other related studies to assess the program.
                        chief technology officer
    Question. If confirmed, as DDR&E, you will be the CTO of DOD.
    What do you see as the role of the CTO of DOD?
    Answer. The role of the CTO of the Department is defined in the 
DDR&E charter. The charter defines the role of the DDR&E as the 
Principal Staff Assistant to the USD(AT&L) and the Secretary on all 
technical matters. The DDR&E should provide guidance to shape the DOD 
S&T program and to develop technology options for the Department. The 
CTO should also contribute significantly to ensuring that major 
acquisition programs are conducted with acceptable technological risk.
    Question. What lessons have you learned as CTO of Massachusetts 
Institute of Technology (MIT) Lincoln Laboratory that will enhance your 
ability to serve as CTO of DOD?
    Answer. My lessons as the CTO at Lincoln Lab highlighted the 
importance of building partnerships and alliances. If confirmed, I will 
attempt to apply my lessons learned to the DOD.
    Question. What authorities do you currently possess as CTO of MIT 
Lincoln Laboratory that you find most useful in exercising you 
responsibilities as CTO?
    Answer. My open access to the MIT leadership and the tremendous 
collaboration across the MIT technical community has opened new 
technical frontiers and rapidly transitioned key ideas from research to 
end use.
    Question. Do you believe you will have those same authorities if 
confirmed as DDR&E?
    Answer. Yes, I believe the same authorities will exist as DDR&E.
                technology readiness assessment process
    Question. Have you participated in or observed the development of 
Technology Readiness Assessments (TRAs) to support Milestone Decisions 
for defense acquisition programs?
    Answer. I have not yet had the opportunity to participate or 
observe any TRAs.
    Question. What is your assessment of the value, strengths, and 
weaknesses of the current process?
    Answer. My current understanding of TRAs is that they offer 
substantial value from cost, schedule, and performance perspectives by 
causing the DOD acquisition process to confront technology maturity 
issues in a rigorous and timely fashion. Among the greatest strengths 
of the DOD TRA process are its focus on independent review teams of 
technology experts, and the requirement for hard evidence to prove 
technology readiness ratings. Another strength of the process is 
standardization throughout the military components, through the DOD TRA 
Deskbook and frequent DOD-wide training and workshops. I believe, 
consistent with the Weapons Systems Acquisition Reform Act of 2009, 
that the process could be strengthened by adding greater emphasis on 
system integration issues.
    Question. Would you recommend any changes to the processes used for 
the assessment of technological maturity and integration risk of 
critical technology elements?
    Answer. Before recommending any changes to the current process, I 
believe I would need to observe and participate (as a reviewer) in the 
DOD TRA process. If confirmed, I intend to do so.
    Question. Are you satisfied that the DDR&E is properly staffed and 
resourced to support decisionmakers in complying with the technology 
certification and assessment requirements that are its responsibility?
    Answer. From my current vantage point, I am unable to make this 
determination.
    Question. What changes, if any, would you anticipate making, if 
confirmed, in this process as a result of the enactment of the Weapon 
Systems Acquisition Reform Act of 2009?
    Answer. If confirmed, I will carefully consider changes that may be 
needed. I believe it is likely that the requirement to conduct 
``periodic'' reviews of technology maturity, the addition of 
integration risk, and the requirement to conduct assessments in 
consultation with the Director of Developmental Test and Evaluation 
(D,DT&E) will lead to changes in the current process.
            coordination of defense s&t with other agencies
    Question. Do you believe the mechanisms of coordination between 
Federal civilian agencies and the Department are adequate to ensure 
that the military can best leverage the advances of agencies such as:
    National Science Foundation on defense needs for basic science, 
especially in social sciences?
    Answer. From my current vantage point, I am unable to definitively 
make this determination, but, adequate coordination and collaboration 
processes appear to exist. If confirmed, I will ensure that dialogue 
with the Department and the National Science Foundation is open and 
transparent.
    Question. National Aeronautics and Space Administration (NASA) on 
hypersonics and other space research and the viability and availability 
of testing facilities?
    Answer. From my current vantage point, I am unable to definitively 
make this determination, but adequate coordination and collaboration 
processes appear to exist. If confirmed, I will ensure that dialogue 
with the Department and NASA is open and transparent.
    Question. National Institutes of Health (NIH) on areas in which 
military medical research and vaccine development overlap with civilian 
medical needs?
    Answer. From my current vantage point, I am unable to definitively 
make this determination, but adequate coordination and collaboration 
processes appear to exist. If confirmed, I will ensure that dialogue 
with the Department and NIH is open and transparent.
    Question. Intelligence Community in setting defense research 
priorities to prepare for future threat environments?
    Answer. From my current vantage point, I am unable to definitively 
make this determination, but adequate coordination and collaboration 
processes appear to exist. If confirmed, I will ensure that dialogue 
with the Department and the Intelligence Community is open and 
transparent.
    Question. Department of Homeland Security on homeland defense and 
national security-related science?
    Answer. From my current vantage point, I am unable to definitively 
make this determination, but adequate coordination and collaboration 
processes appear to exist. If confirmed, I will ensure that dialogue 
with the Department and Department of Homeland Security is open and 
transparent.
    Question. If confirmed, how would you work with other Federal 
agencies and the Office of S&T Policy to improve coordination?
    Answer. From my current vantage point, I am unable to definitively 
make this determination, but adequate coordination and collaboration 
processes appear to exist. If confirmed, I will ensure that dialogue 
with other Federal agencies and the Office of S&T Policy is open and 
transparent.
                          technology strategy
    Question. What weaknesses, if any, do you see in the current 
Defense S&T strategic planning process?
    Answer. I do not have enough insight into the internal DOD 
Strategic planning process to judge this activity.
    Question. What do you believe are the key attributes for a good 
strategic plan that can be effectively utilized for programming and 
budgeting purposes?
    Answer. I believe a good strategic plan should be simple, clear, 
realistic, and widely disseminated. Additionally, a strategic plan 
should be linked to higher goals and provide guidance for subordinate 
organizations.
    Question. If confirmed, how would you work to ensure that strategic 
plans are utilized during the budget planning and programming process?
    Answer. Before recommending how I would do this, I need to 
participate in the DOD budget planning and programming process and will 
do so if confirmed.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. The Department's fiscal year 2010 budget proposes 
increases across a spectrum of technology transition programs. 
Challenges remain, however, in successfully transitioning new 
technologies into existing programs of record, fielded systems, and 
major weapons systems and platforms.
    What challenges exist in technology transition within the 
Department?
    Answer. Based on my experience, lack of funding flexibility and the 
extended timelines of DOD requirements and budget processes are 
challenges to technology transition. Successful transition requires an 
appropriately mature technology, a user need, an insertion window in 
the program of record, and budgeted resources for implementation. This 
alignment is hard to achieve and maintain, and the gap between S&T and 
acquisition often needs bridge funding in the execution year.
    Question. What would you do, if confirmed, to address these 
challenges?
    Answer. If confirmed, I will review the mechanisms and processes 
that are in place and determine if improvements are needed.
    Question. What is the role of the DDR&E in facilitating 
communication between technical communities, acquisition personnel, and 
end users to speed technology transition?
    Answer. I believe one key factor to successful technology 
transition is early engagement. If confirmed, I will foster 
relationships among these communities by understanding the needs of the 
warfighter and by interpreting those needs in a manner that allows the 
acquisition system to respond.
    Question. Do you believe that we need to change the manner in which 
we fund technology transition in DOD? If so, what changes would you 
recommend?
    Answer. I am aware that the 2009 National Defense Authorization Act 
mandates the Department to develop an assessment of various technology 
transition programs within DOD, and that an assessment is being 
performed by the DDR&E staff. If confirmed, I will ensure that the 
assessment goals meet the intent of the language, and that appropriate 
action is taken to balance our technology transition portfolio with the 
needs of the warfighter.
                  systems engineering and prototyping
    Question. Do you feel that DOD has sufficient systems engineering 
expertise in its current workforce or contractor base?
    Answer. I am aware that some aspects of prior acquisition reform 
initiatives may have removed technical capability from the government 
workforce and delegated them to the contractor base.
    Question. What changes do you anticipate will be made in the 
Department's systems engineering organization and practices as a result 
of the enactment of the Weapon Systems Acquisition Reform Act of 2009?
    Answer. The Weapon Systems Acquisition Reform Act of 2009 
identifies a key role for systems engineering in the acquisition 
process. I believe there will be opportunities to strengthen systems 
engineering in response to this act.
    Question. What is the value of competitive prototyping in 
increasing the success of DOD acquisition efforts?
    Answer. I regard prototyping as a critical path to enhanced 
technology development and reduced technical risk. Through competitive 
prototyping we should be able to achieve more predictable cost, 
schedule and performance outcomes leading to increased success with our 
DOD acquisition programs.
    Question. What impact do you expect the Weapon Systems Acquisition 
Reform Act of 2009 to have on competitive prototyping efforts by DOD?
    Answer. I expect the Weapon Systems Acquisition Reform Act of 2009 
to have a positive impact by adding significant authority to the DOD's 
competitive prototyping policy. The competitive prototyping 
clarification, combined with the systems engineering emphasis provided 
by the legislation, offer the opportunity to identify, scope, resource 
and execute the pre-milestone B activities collaboratively between the 
requirements and the acquisition communities to develop the data 
required to fully inform the milestone B.
    Question. If confirmed, how will you work to increase the amount of 
systems engineering projects and competitive prototyping efforts that 
are undertaken by DOD and its contractor base?
    Answer. If confirmed, I will facilitate communication between the 
S&T community and the systems engineering community to engage with 
programs early in the acquisition lifecycle, and work to ensure 
maturity and integration issues of critical technologies are fully 
addressed.
                       venture capital strategies
    Question. In recent years, some components of DOD have attempted to 
follow the lead of the intelligence community by using venture capital 
firms to make investments in developing technologies.
    What role do you believe that venture capital firms should play in 
DOD's investments in developing technologies, including in the Small 
Business Innovation Research (SBIR) program?
    Answer. Venture capital firms can provide access to innovative 
companies that might not normally gain exposure to DOD. If confirmed, I 
will explore opportunities within DOD guidelines to capitalize on the 
ability of venture capital firms to reach companies to identify 
technology solutions of interest to DOD within legal authorities.
    Question. What advantages and disadvantages do you see in the use 
of venture capital strategies?
    Answer. The advantage of venture capital strategies is that they 
provide windows to companies that are not traditional DOD partners. The 
disadvantage to venture capital strategies is that small firms are not 
often fully cognizant of government practices.
    Question. When DOD does decide to use venture capital strategies, 
what steps do you believe the Department should take to ensure that DOD 
funds are invested in technologies and companies that properly reflect 
national defense priorities, avoid the potential for conflicts of 
interest by industry partners, and ensure that the Department's 
investments are not diluted?
    Answer. I believe before investing in a venture capital 
opportunity, the project should be reviewed to ensure it will meet a 
military requirement and is not duplicating the work that is already 
being supported through other programs. The review should include the 
full participation of interested parties and potential users within 
DOD.
    Question. What other strategies do you intend to employ, if 
confirmed, to ensure that the nation's most innovative companies work 
on DOD research and engineering programs?
    Answer. If confirmed, I will conduct a review of existing 
mechanisms that allow innovative companies to work with DOD and 
identify any obstacles that prevent innovative companies from working 
with DOD.
                   international research cooperation
    Question. In your view, how should increased globalization of 
defense technology affect DOD's research and technology development and 
investment strategy?
    Answer. The increased globalization of defense technology impacts 
the DOD on several levels. First, the intellectual capital advantage 
the U.S. once enjoyed is being eroded as other nations' R&D investments 
increase. The U.S. no longer enjoys a monopoly in some technologies. 
Finally, the non-U.S. science and engineering labor force continues to 
expand at a greater rate than that of the U.S. Because technology is 
becoming a global commodity, I believe the Department should look to 
expand, within policy guidelines, international S&T awareness. If 
confirmed, I will work towards that goal.
    Question. What is your assessment of the value of cooperative 
research and development programs with international partners?
    Answer. From my current vantage point, I understand the value of 
cooperative research and development with international partners. This 
value needs to be balanced with national security factors to maximize 
research and development output without security risk. If confirmed, I 
will review international cooperative agreements in this light.
    Question. In your view, what are the obstacles to more effective 
international cooperation, and, if confirmed, how would you address 
those obstacles?
    Answer. From my current vantage point, I am unable to assess 
obstacles to more effective international cooperation, but if 
confirmed, I will work hard to balance the benefits of international 
cooperation, which I believe exist, with the risks, and take 
appropriate action.
    Question. How will increased international technology cooperation 
affect our domestic defense industrial base?
    Answer. My experience has shown me that a case-by-case assessment 
of the impact of any proposed international technology cooperation 
includes the impact on the domestic industrial base.
    Question. How should DOD monitor and assess the research 
capabilities of our global partners and competitors, and of the global 
commercial sector?
    Answer. I am aware all of the Services have offices around the 
globe to assess the research capabilities of our global partners. Since 
global technology is important, if confirmed, I will examine the output 
of these offices and take steps to strengthen their capability if 
needed.
                          test and evaluation
    Question. What are your views on the adequacy and effectiveness of 
the Department's development and OT&E activities?
    Answer. From my current vantage point, I am not able to 
comprehensively assess the adequacy of the Department's developmental 
or OT&E activities. I do know that a properly defined test plan should 
improve technology development, and, if confirmed, I would be 
responsible as CTO for demonstrations, and would review test plans 
accordingly.
    Question. What changes do you anticipate will be made in the 
Department's developmental testing organization and capabilities as a 
result of the enactment of the Weapon Systems Acquisition Reform Act of 
2009?
    Answer. From my reading of the Weapons Systems Acquisition Reform 
Act of 2009, I understand that the statute requires creation of a 
position entitled D,DT&E. Since such a position does not currently 
exist, I believe the new statute will drive change to D,DT&E.
    Question. What modifications would you recommend to the test and 
evaluation processes in DOD to more efficiently and quickly develop and 
deliver operationally effective and suitable technologies to the 
warfighter?
    Answer. I believe it is important that equipment and technology 
acquired by the Department be subject to robust Systems Engineering, 
comprehensive Developmental Test and Evaluation, and realistic OT&E. If 
confirmed, I would enforce the provision of the Weapons Systems 
Acquisition Reform Act of 2009 that addresses the technology maturity 
issue through the activities of the DDR&E, in consultation with the 
D,DTE.
                         small business issues
    Question. If confirmed, how would you work to ensure that the SBIR 
program serves a useful purpose in meeting the Department's research 
goals?
    Answer. The DOD SBIR program represents a substantial augmentation 
to the Department's core tech base research funds. SBIR research topics 
and contracts should support DOD priority needs, and be complementary 
to core research investments. If confirmed, I will review the current 
DDR&E process for coordinating the SBIR program and will work to ensure 
that this process yields a valuable contribution to the Department's 
research investments.
    Question. What guidance or direction do you consider necessary 
regarding transition of the research results of SBIR programs to major 
weapons systems and equipment?
    Answer. If confirmed, I will work with the DOD Office of Small 
Business Programs, and other appropriate offices, to develop mechanisms 
to improve the visibility of SBIR technologies to major weapons 
programs, as well as with the Services SBIR program managers to make 
sure the SBIR research is as relevant as possible.
    Question. What emphasis would you place, if confirmed, on 
participation by the acquisition community in setting research 
priorities for the SBIR and in accepting new solutions into existing 
programs of record?
    Answer. I do not know the current process for balancing SBIR 
priorities, but I believe that acquisition programs should be a source 
of SBIR research topics, and should be an interested and willing 
customer for SBIR products. Topics for new SBIR competitions should be 
informed by acquisition community needs and shortcomings. If confirmed, 
I will encourage Service Acquisition Executives to play a vigorous role 
in developing new SBIR research topics, and in fostering adoption of 
mature SBIR technologies into programs of record.
    Question. In your judgment, are modifications needed to the 
Department's SBIR program to ensure it meets the Department's goals and 
is updated to support research costs of the small business community?
    Answer. In general, I believe that the Department is best served by 
an SBIR program that enables contracts in each SBIR phase to be 
properly scaled for anticipated costs of the intended research, and 
that the size limit on SBIR-eligible firms should be strictly applied 
so as to encourage maximum participation by small firms. If confirmed, 
I will examine the SBIR program in more detail to determine if 
modifications are needed.
                          defense laboratories
    Question. What is your overall assessment as to the technical 
capabilities and quality of Defense laboratories relative to their 
Department of Energy, FFRDC, industry, academic and foreign peers?
    Answer. I believe that a robust and rigorous S&T program, which 
includes high-performing DOD laboratories, is important to our national 
security. The DOD laboratories provide a unique and dedicated array of 
capabilities for the military. The DOD labs, working in partnership 
with other agency and university laboratories, have historically played 
a major role in our military's technology superiority. However, based 
on recent assessments, there may be a need for improvement. If 
confirmed, I will place a priority on examining our Defense 
laboratories and workforce. We will study comparisons between the 
Department of Energy national laboratories, NASA research centers, the 
National Institute of Standards and Technology, as well as universities 
and industry. If necessary improvements are identified, a plan will be 
developed for their implementation.
    Question. What are your views on the most effective management 
approach for personnel at these facilities?
    Answer. The ability of the DOD laboratories to support the 
Department's missions through research and technology development is 
important for our national security. The keys to a productive 
laboratory are its workforce and providing a state-of-the-art technical 
environment in which scientists and engineers have the opportunity to 
develop innovative concepts. Providing laboratory directors flexibility 
in their ability to hire, train, and retain a talented technical 
workforce and providing them with facilities conducive to scientific 
discovery are essential. If confirmed, I will study which management 
practices have yielded good results and work towards expanding their 
use.
    Question. A review of defense laboratories operations shows various 
deficits in personnel management, infrastructure renewal, physical 
plant recapitalization rate, support services adequacy, etc. Some 
analyses have indicated that these deficiencies result from excessive 
centralized control.
    Do you support significantly increased delegation of operating 
authority to the lab director?
    Answer. I believe in aligning responsibility at the lowest possible 
level needed to execute. Consequently, I support, in principle, 
delegating increased operating authority to laboratory directors. If 
confirmed, I will direct the Deputy Under Secretary of Defense for 
Laboratories and Basic Sciences (USD(LABS)) to review personnel 
management, infrastructure recapitalization, and other lab issues, and 
provide recommendations to address identified problems. I will then 
work towards developing the necessary authorities for lab directors 
based upon these recommendations.
    Question. If confirmed, what steps, if any, will you take to 
improve the quality, technical capabilities, and mission performance of 
the Defense laboratories?
    Answer. The first step to take towards improving any enterprise is 
to assess objectively the current state of the enterprise. Before 
delineating specific steps to take to improve the DOD labs, if 
confirmed, I would take steps to fairly assess their quality, technical 
capabilities, and so forth. In general, I believe the labs are a 
critical element in addressing identified warfighting capability needs, 
both current and future, as well as developing technology to meet 
potential threats in the future. I believe it is important to preserve 
this capability.
    Question. Would you support transitioning certain laboratory 
capabilities into Federally-Funded Research and Development Centers or 
Government Owned-Contractor Operated facilities?
    Answer. If confirmed, I will ask the Deputy USD(LABS) to study 
these options, and provide recommendations.
                    laboratory personnel management
    Question. The Department's research and development laboratories 
perform unique functions in serving national security missions and do 
not readily fit into the general operational management structure. The 
JASON study observed that ``civilian career paths in the DOD research 
labs and program management are not competitive to other opportunities 
in attracting outstanding young scientists and retaining the best 
people.'' Congress has enacted legislation granting special authorities 
to the Secretary of Defense for flexible management and personnel 
demonstration experiments at the laboratories and has exempted the 
demonstration laboratories from inclusion in the National Security 
Personnel System until 2012.
    Would you support making the laboratories' exemption from NSPS 
permanent and enabling them to make full use of the flexibilities 
inherent in the laboratory demonstration program's enabling statutes?
    Answer. Based on recent news articles, I believe DOD is currently 
assessing the implementation of NSPS and is also assessing flexible 
hiring authorities. The result of that assessment would be a factor in 
any decisions about further implementation of lab management.
    Question. What particular workforce challenges does the Office of 
the DDR&E have?
    Answer. A technically skilled and competent workforce is essential 
to the success of technology development and acquisition programs. 
Attracting, hiring, training, and retaining a technical workforce is a 
pressing challenge facing many organizations. If confirmed, I would 
take steps to attract and retain the best possible personnel. Such 
steps include but are not limited to ensuring effective outreach 
programs to students, offering competitive salaries to employees, 
training personnel to ensure they maintain their skills, and providing 
an environment which stimulates innovative thinking and risk taking.
    Question. If confirmed, how will you go about making the resource 
assessment required by section 104(b) of the Weapon Systems Acquisition 
Reform Act of 2009?
    Answer. If confirmed, I will ask my Director of Plans and Programs 
to work with the Deputy USD(LABS), the Director of the Test Resource 
Management Center, and the Deputy Under Secretary of Defense for 
Acquisition and Technology to develop an analytical estimate of the 
resources required.
               technical and acquisition workforce issues
    Question. In your view, does the Department have adequate technical 
expertise within the government workforce to execute its designated 
acquisition and technical development missions?
    Answer. Based on my current vantage point, any assessment of the 
adequacy of the DOD technical workforce would be an opinion, not an 
analytical assessment. Because of the importance of people to the 
technical product, I believe such an assessment needs to be based on 
hard facts and data. If confirmed, I would require the DDR&E staff to 
develop the data needed for an analytical assessment before providing 
an opinion or taking any actions.
    Question. What efforts will you undertake, if confirmed, to improve 
the technical capabilities of DOD in critical areas, such as systems 
engineering, information assurance, social and cultural sciences, and 
software engineering?
    Answer. I am aware that the DDR&E is responsible for the overall 
Department's Science, Technology, Engineering, and Mathematics (STEM) 
education oversight. If confirmed, I would first review existing 
programs to assess adequacy of the technical workforce, then seek to 
adjust the programs designed to develop new scientists and engineers to 
match the supply to the demand.
    defense science board study on the roles and authorities of the 
              director of defense research and engineering
    Question. Have you reviewed the report of the 2005 Defense Science 
Board Task Force on the Roles and Authorities of the DDR&E?
    Answer. I have read the 2005 Defense Science Board Task Force on 
the Roles and Authorities of the DDR&E.
    Question. If so, what are your views of this report and, if 
confirmed, how would you plan to utilize the findings of the Defense 
Science Board Task Force?
    Answer. If confirmed, I will review the report in detail to 
determine which recommendations remain relevant, and work with 
leadership of DOD on determining what findings and recommendations 
should be implemented and how best to implement these recommendations.
               defense advanced research projects agency
    Question. What is your view of the appropriate relationship between 
the DDR&E and the Director of DARPA?
    Answer. The Director of DARPA reports to the DDR&E per DOD 
Directive 5134 and I have no reason to believe that changes should be 
made to this relationship.
    Question. What do you believe is the proper research mission for 
DARPA?
    Answer. DARPA has a long and storied history of being an engine of 
innovation for the U.S. DARPA's ability in being able to tackle some of 
the most difficult problems facing the DOD, and apply very innovative 
solutions is unique. I believe the proper role for DARPA is to conduct 
the high-risk, high-payoff research for the Department, and to share 
that work with the Services and others within the government.
    Question. What adjustments do you expect to make, if confirmed, to 
the current style of DARPA research program management and investment 
strategy?
    Answer. If confirmed, I intend to work closely with DARPA, as well 
as the Services, to provide a balanced technology approach for the 
Department. If confirmed, I will closely examine the current DARPA and 
Service management processes to determine if adjustments are required, 
and if they are, how to provide the best possible, but balanced product 
to meet current and future needs of DOD.
    Question. What do you believe are the key characteristics of an 
effective DARPA Director?
    Answer. I believe the DARPA Director should have the skills to 
effectively communicate the value of the DARPA product, have an ability 
to build teams outside of DARPA, and finally, be infused with a spirit 
that does not accept that something cannot be done.
    Question. What, in your view, is the appropriate relationship 
between DARPA and the Service S&T programs?
    Answer. The appropriate relationship between DARPA and the Services 
should be complementary. DARPA pushes the far side to develop the big 
leap-ahead advances, while the Service S&T programs draw upon these 
technological advancements to develop products. Any S&T program that 
does not balance these two forces is, I believe, suboptimal. If 
confirmed, I will work to maintain this balance.
    Question. What, in your view, is the appropriate relationship 
between DARPA and the Service laboratories?
    Answer. The laboratories and DARPA are partners in developing 
technology solutions for the warfighter.
      science, technology, engineering, and mathematics education
    Question. Do you believe that DOD specifically and the Nation as a 
whole is facing a crisis in STEM education?
    Answer. Based on recent blue ribbon studies and my own experience, 
I believe both the DOD and the Nation have a challenge in STEM 
education, and our ability to educate, train, and retain students and 
workers in the STEM fields. This is a particular challenge for DOD, 
which manages a large part of the Federal science and engineering 
workforce and 35,000 at the DOD laboratories.
    Question. In your view, how will this affect DOD's ability to 
prosecute its missions?
    Answer. The ability of the Department in carrying its missions 
depends on an educated and talented STEM workforce; consequently, if 
confirmed, maintaining STEM personnel will be important to me.
    Question. What role do you think DOD should play in supporting STEM 
education?
    Answer. I believe the Department should be actively engaged at all 
levels across the STEM education continuum--pre-college through 
graduate--and, more importantly, work with the Office of S&T Policy, 
the National Science Foundation and other Federal components involved 
in national security, to generate a ``whole of government'' approach to 
workforce development.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the DDR&E?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Zachary J. Lemnios follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 18, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Zachary J. Lemnios, of Massachusetts, to be Director of Defense 
Research and Engineering, vice John J. Young, Jr.
                                 ______
                                 
    [The biographical sketch of Zachary J. Lemnios, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Zachary J. Lemnios
    Zachary J. Lemnios is Chief Technology Officer at the Massachusetts 
Institute of Technology (MIT) Lincoln Laboratory. He is responsible for 
coordinating technology strategy across the laboratory and for 
establishing and growing strategic external relationships to support 
current and future laboratory missions. These strategic technology 
efforts include collaboration with MIT Campus to develop and leverage 
research projects in support of defense and related activities. He is a 
member of the Director's Office Staff and Laboratory Steering 
Committee.
    At Lincoln Laboratory, Mr. Lemnios has served as Assistant Division 
Head of the Solid State Division, a member of the Senior Management 
Council, and co-chair of the New Technology Initiatives Board. As a 
Senior Staff member in the Solid State Division, he led efforts to 
develop novel system applications for a broad range of materials 
including CMOS/SOI, SiC, GaN, AIGaN and GaAs. He also developed and 
inserted advanced microelectronics technology into performance-driven 
Department of Defense (DOD) applications.
    During 2003-2005, Mr. Lemnios was Director of the Defense Advanced 
Research Projects Agency (DARPA) Microsystems Technology Office, 
responsible for developing and implementing the strategic vision and 
technical plans for the office and for transitioning those elements to 
the DOD. From April 2002 to July 2003, he was the Deputy Director of 
the Information Processing Technology Office, where he was instrumental 
in developing and launching a new DARPA direction in cognitive systems.
    Prior to joining Lincoln Laboratory, Mr. Lemnios was Assistant 
Director of the Electronics Technology Office, also at DARPA, and led 
the development and insertion of advanced microelectronics into many 
DOD systems. In addition to launching national research initiatives in 
advanced microelectronics, he sponsored the development of the first 
250 nm CMOS/bulk and SOI manufacturing technology base. His further 
support of wideband and high linearity analog-to-digital converters 
resulted in key system insertions for critical DOD applications.
    Within industry, Mr. Lemnios has held various positions at Hughes 
Aircraft Company, Westinghouse Electric Corporation, and Ford 
Microelectronics, Inc. He has served on numerous DOD, industry, and 
academic committees, including various Defense Science Board studies, 
the DARPA Information Science and Technology Study Group, and the DARPA 
Defense Science Research Council.
    He holds a BSEE degree from the University of Michigan and an MSEE 
degree from Washington University in St. Louis, and attended the 
Harvard Kennedy School of Government Program for Senior Executives in 
National and International Security. He is also a Senior Member of the 
IEEE, has authored over 40 papers, holds 4 patents, and has been 
awarded the Office of the Secretary of Defense Medal for Exceptional 
Public Service.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Zachary J. 
Lemnios in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Zachary J. Lemnios.

    2. Position to which nominated:
    Director, Defense Research and Engineering.

    3. Date of nomination:
    May 18, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 21, 1955; Cambridge, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Stephanie Bicoulis.

    7. Names and ages of children:
    Melanie, 29; Grace, 26; Sarah, 24; Jon, 22.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Michigan, 1972-1976, Bachelor of Science in 
Electrical Engineering Washington University in Saint Louis, MO, 1977-
1979, Masters of Science in Electrical Engineering.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    08/06 to present, Special Government Employee, Defense Advanced 
Research Projects Agency.
    08/06 to present, Chief Technology Officer, MIT Lincoln Laboratory, 
Lexington, MA.
    03/05 to 08/06, Assistant Head, Solid State Division, MIT Lincoln 
Laboratory, Lexington, MA.
    06/03 to 03/05, Director, Microsystems Technology Office, Defense 
Advanced Research Project Agency, Arlington, VA.
    04/02 to 06/03, Deputy Director, Information Processing Technology 
Office, Defense Advanced Research Project Agency, Arlington, VA.
    03/97 to 04/02, Senior Staff, MIT Lincoln Laboratory, Lexington, 
MA.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Defense Science Board Study Participant, 2006 to present.
    DARPA Defense Science Research Council, Red Team, 2008 to present.
    DARPA Information Science and Technology, Red Team, 2008 to 
present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    I am a Senior Member of the Institute of Electronic and Electronics 
Engineers (IEEE).
    I am currently serving as Parish Council President for the Hellenic 
Orthodox Association, Inc. This is the nonprofit corporation that was 
established to operate the St. Nicholas Greek Orthodox Church of 
Lexington, MA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    February 2005 - Awarded Office of Secretary of Defense Medal for 
Exceptional Public Service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    See Attachment 1.
    [Attachment retained in the committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Z. Lemnios, ``Creating Capability Surprise,'' Keynote Speaker for 
NDIA/DOD Science & Engineering Technology Conference/DOD Tech 
Exposition, Charleston, SC, April 2009 (included in attachment).
    [Attachment retained in the committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Zachary J. Lemnios.
    This 8th day of May, 2009.

    [The nomination of Zachary J. Lemnios was reported to the 
Senate by Chairman Levin on June 18, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 19, 2009.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Dennis M. 
McCarthy, USMC (Ret.), by Chairman Levin prior to the hearing 
with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Yes. I believe the act can be made even more valuable.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Expand application of the act to more Reserve component 
personnel, and ensure that educational opportunities are available to 
enable Reserve component personnel to meet applicable requirements.
                                 duties
    Question. Section 138 of title 10, U.S.C., provides that the 
Assistant Secretary of Defense for Reserve Affairs shall have ``as his 
principal duty the overall supervision of Reserve component affairs of 
the Department of Defense (DOD).''
    If confirmed, what duties do you expect that the Secretary of 
Defense will prescribe for you?
    Answer.

          (1) Travel widely to meet with Citizen Warriors, their 
        families and employers to ensure I can provide an accurate 
        assessment of the state of this important triad.
          (2) Be an advocate for the effective use and long-term 
        sustainment of the Reserve components.
          (3) Meet with combatant commanders and other gaining force 
        commanders to ensure I understand their views of the 
        effectiveness of Reserve component policy and funding to meet 
        their requirements.

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. Forty-one years total Marine Corps service; command and 
staff assignments in both Active and Reserve units; service as a 
traditional reservist, balancing employment, family, and military 
demands; service as a Reserve component chief; service as the Marine 
component commander of U.S. Northern Command (NORTHCOM); service on the 
Reserve Forces Policy Board; leadership of the Reserve Officers 
Association of the United States; a wealth of friendships and 
relationships with people both in and out of uniform who are interested 
in the success of the National Guard and Reserves.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of Defense for Reserve 
Affairs?
    Answer.

          (1) Ensure that I understand the intent of the Secretary of 
        Defense;
          (2) keep the Deputy Secretary of Defense and the Under 
        Secretary of Defense (USD) for Personnel and Readiness fully 
        informed in whatever ways they require;
          (3) maintain close personal contact with both military and 
        civilian stakeholders to keep up my situational awareness of 
        the status and capabilities of the Reserve components; and
          (4) make every effort to ensure that the Office of the 
        Assistant Secretary of Defense Reserve Affairs (OSD(RA)) team 
        understands my intent and is empowered to take appropriate 
        action.

    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of Defense.
    Answer. Since this position reports directly to the USD Personnel 
and Readiness, my relationship would be through the USD to the 
Secretary of Defense. I'm sure there will be ``other duties as 
assigned'' and I will carry them out to the best of my ability.
    Question. The Deputy Secretary of Defense.
    Answer. The same will hold true for Deputy Secretary Lynn.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. I intend to work within whatever framework is established 
by the Under Secretary. I will encourage a transparent information flow 
both in and out.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness .
    Answer. I intend to have a collegial relationship with the 
Principal Deputy Under Secretary of Defense and support his/her efforts 
to support the USD, even though this position is not in the reporting 
chain.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. A key partner. Developing a collaborative relationship with 
Assistant Secretary Stockton will be an immediate priority if I am 
confirmed.
    Question. The General Counsel of DOD.
    Answer. I intend to seek his advice, concurrence, and counsel on 
matters that fall under the purview of that office.
    Question. The combatant commanders, particularly the Commander, 
NORTHCOM.
    Answer. I view them as ``customers'' whose principal interest 
regarding the Reserve component is having capable Reserve component 
forces when and where they are needed. I would seek to leverage my 
prior service with both NORTHCOM and U.S. Joint Forces Command to meet 
their needs.
    Question. The Assistant Secretaries in the military departments 
responsible for Reserve matters.
    Answer. As I understand it, the office has an open communication 
with the Assistant Secretaries at all levels. I would certainly 
continue to encourage that.
    Question. The Chief of the National Guard Bureau (NGB).
    Answer. A key partner. OSD(RA) must provide service that enhances 
his ability to provide forces as required, and to sustain those forces. 
It is essential that I understand his needs and that I effectively 
communicate the Secretary of Defense's intent to him.
    Question. The Chiefs of Reserves of each of the Services.
    Answer. Same as Chief, NGB.
    Question. The Assistants to the Chairman of the Joint Chiefs of 
Staff for Guard and Reserve Matters.
    Answer. Achieve an open and transparent relationship in order to 
leverage their insights into the Chairman's thinking and the status of 
Joint Staff initiatives.
    Question. The Reserve Forces Policy Board.
    Answer. Achieve a collaborative relationship that reinforces the 
Board's ability to fulfill its role as an independent information 
resource for the Secretary on matters and issues assigned by him to the 
Board.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of Defense for Reserve Affairs?
    Answer. I believe that our country is in an era of persistent 
conflict that requires our military forces to fulfill a broad range of 
missions. Success in this struggle will continue to require the 
contributions of Reserve component forces, which provide operational 
capabilities and strategic depth to meet U.S. defense requirements 
across the full spectrum of conflict. A key challenge, from my 
perspective, is to sustain the Reserve component as an integral part of 
the All-Volunteer Total Force.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I intend to work with all interested and 
affected parties in working toward successful solutions. I anticipate 
focusing on maintaining a balance for servicemembers among Military 
Service, families, and employers. I expect to emphasize the continuum 
of service as a means to sustain the All-Volunteer Force with flexible 
service options that are attractive to a broad population. It is my 
perspective that the implementation of the Department's utilization 
rules that govern the frequency and duration of activations provides 
predictability for servicemembers and effectively manage the 
expectations of our servicemembers, their families, and employers.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of Defense 
for Reserve Affairs?
    Answer. If confirmed, I would have to take the time to ascertain 
what if any problems there are. It would be presumptuous of me to make 
a judgment one way or the other. My predecessor, Tom Hall, is a great 
leader and probably left me an outstanding organization. It is, 
however, safe to say that effective communication up and down the chain 
of command is an ongoing challenge for every organization. If 
confirmed, I will work hard on that issue.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I won't know until I get my marching orders from the 
Secretary, the Deputy, and the Under Secretary, and until I've had some 
time to meet the people in OSD(RA).
                        recruiting and retention
    Question. Some have expressed concern that use of the Reserve 
component as an operational force and the current mobilization of 
Reserve component members for lengthy deployments will have an adverse 
effect on recruiting and retention in the Reserve components.
    If confirmed, what actions will you take to enhance recruiting and 
retention of experienced members of the Reserve components?
    Answer. All of the recent figures I have seen indicate that overall 
recruiting and retention goals are being met. OSD(RA) should support 
effective implementation of currently successful efforts that enhance 
recruiting and promote retention. Supporting families and enhancing 
partnerships with employers are two of the most effective, albeit 
indirect, ways to influence retention because they can reduce home and 
job stress.
    Question. Historically, the Reserve components have successfully 
recruited prior service personnel as they leave active duty. With the 
increased retention of Active-Duty Forces, the pool of prior service 
personnel available to the Reserve components is shrinking. 
Additionally, servicemembers who have been deployed multiple times may 
be less interested in continuing service in the Reserve components 
because of the potential for mobilization and additional deployment.
    If confirmed, what actions will you take to assist the recruiting 
efforts of the Reserve components?
    Answer. Primarily, I will listen to the Reserve Chiefs and their 
leaders to ensure I understand what they need to succeed in these 
areas. I also believe that OSD(RA) can be a ``think-tank'' for new 
ideas and approaches. For example, changes in the over-all mix of prior 
service and non-prior service personnel may indicate that new programs 
are required to provide noncommissioned officers, warrant officers, and 
company grade officers in some components. OSD(RA) should support 
service experimentation efforts to address new challenges that emerge 
in this era of persistent conflict.
               medical personnel recruiting and retention
    Question. Much of the medical infrastructure for DOD is in the 
Reserve components. DOD has significant shortages in critically needed 
medical personnel in both the Active and Reserve components. The 
committee is concerned that growing medical support requirements will 
compound the already serious challenges faced in recruitment and 
retention of medical, dental, nurse, and behavioral health personnel.
    If confirmed, will you undertake a comprehensive review of the 
medical support requirements in the Reserve components and the 
sufficiency of plans to meet recruiting and retention goals in these 
specialties?
    Answer. I will continue to support the joint, collaborative effort, 
known as the Medical Recruiting and Retention Working Group, co-led by 
Personnel and Readiness leaders from Reserve Affairs, Military 
Personnel Policy and Health Affairs. Their charter is to review and 
evaluate total force (Active and Reserve) health professions personnel 
recruitment and retention policies, programs and procedures with an eye 
toward optimizing tri-service, multi-component cooperation in meeting 
recruiting and retention requirements.
    Question. What legislative and policy initiatives, including 
greater involvement personnel in recruiting and enhanced bonuses and 
special pays, do you think may be necessary to ensure that the Reserve 
components can continue to meet medical support requirements?
    Answer. The National Defense Authorization Act for Fiscal Year 2008 
included the consolidation of special and incentive pay authorities. 
The consolidation provides the Department with the increased 
flexibilities needed to better target recruiting and retention dollars 
to specific skills, and enables the Department to more effectively and 
efficiently manage our personnel. At OSD(RA) they have begun the 
adaptive planning process for transitioning the bonuses and special 
pays that meet all the Reserve components' health professions long-term 
recruiting and retention needs.
                       use of guard and reserves
    Question. Today's total force concept relies heavily on National 
Guard and Reserve Forces for both day-to-day and contingency 
operations. The role of the Reserves is so integral in the total force 
that military operations involving major, extended missions are 
required to include Reserve participation. Members of the National 
Guard and Reserve Forces are performing more and more duties that have 
been traditionally performed by active duty forces. The Commission on 
the National Guard and Reserves concluded that ``for the foreseeable 
future, there is no reasonable alternative to the Nation's continuing 
increased reliance on its Reserve components for missions at home and 
abroad, as part of an operational force.''
    In your view, is such extensive use of National Guard and Reserve 
personnel for duties that have historically been performed by members 
of the Active components the best use of Reserve component personnel?
    Answer. Yes. My experience tells me that the vast majority of 
Reserve component personnel will rise to meet any challenge, if they 
are provided the resources to succeed in the field and the supportive 
services to care for their families and provide employment security. 
Every member of the National Guard and Reserve serving today has made a 
conscious decision to do so, knowing full well the demands their 
service would entail.
    Question. If confirmed, what actions will you take to enhance the 
support of civilian employers of members of the Guard and Reserves?
    Answer.

          (1) Expand the Army Reserve's current employer partnership 
        initiative to a joint service program;
          (2) support the National Committee for Employer Support of 
        Guard and Reserves and Defense Advisory Board for Employer 
        Support in expanding their efforts to make themselves more 
        relevant and responsive to both employers and employees;
          (3) use all means available to gauge the level of 
        satisfaction and support for the Operational Reserve by private 
        and public sector employers;
          (4) maintain close liaison with the Department of Labor on 
        issues pertaining to the Uniform Servicemembers Employment and 
        Re-employment Rights Act and the Family and Medical Leave Act;
          (5) review existing policies and programs in the areas of 
        healthcare, family support, and veterans assistance to 
        streamline the transition of Reserve component members between 
        periods of military service and employment; and
          (6) strive to act as a channel of communications between DOD 
        and employers regarding Reserve component employment issues.
                 homeland defense and homeland security
    Question. What do you see as the appropriate role of the National 
Guard and Reserves in homeland defense and homeland security?
    Answer. I believe that homeland defense and homeland security is a 
Total Force responsibility. However, experience has shown that the 
Nation needs to focus on better use of the extensive competencies and 
capabilities of the National Guard and Reserves in support of priority 
missions. If confirmed, I will update my understanding of the roles, 
missions, and capabilities of the National Guard and the Reserves and 
will work to ensure that they have the equipment, training, and 
personnel to accomplish their missions, both at home and abroad. As 
stated earlier, I intend to work collaboratively with the Assistant 
Secretary for Homeland Defense and to support the Commander, NORTHCOM, 
as directed by the Secretary of Defense.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness monitoring errors 
caused by antiquated pay systems, limited transition assistance 
programs upon demobilization, and lack of access to members of the 
Individual Ready Reserve (IRR). Reserve force management policies and 
systems have been characterized as ``inefficient and rigid'' and 
readiness levels have been adversely affected by equipment stay-behind, 
cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. It is my understanding that advances have been made in 
increasing the alert and notification times prior to mobilization. This 
provides predictability to servicemembers, their families and 
employers. Additionally, this allows the units identified for 
mobilization to receive increased funding for training and readiness. 
Servicemembers receive TRICARE medical benefits in advance of 
mobilization, increasing their fitness for duty and reducing the time 
to mobilize. The standardization of procedures at home station allows 
the mobilization station to certify deployment readiness. Pay systems 
and duty statuses still suffer from antiquated divisions between Active 
and Reserve components and need improvement.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. It is my understanding that one of the most significant 
enduring changes is the implementation of Service force generation 
plans that enables units to train and deploy on a more predictable time 
line.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. I am not currently aware of any need for changes in these 
authorities. If confirmed, I intend to study this issue.
    Question. Do you agree that National Guard and Reserve personnel 
should be mobilized to augment civilians deployed to Afghanistan?
    Answer. The Department currently has Reserve component members 
deployed in Provincial Reconstruction Teams and Army National Guard 
volunteers in Agriculture Development Teams. It is my understanding 
that the Department of State and United States Agency for International 
Development have had contact with DOD in their efforts to fill 
requirements in Afghanistan. Should they require DOD capacity, I have 
been told that the Secretary has directed the Under Secretary of 
Defense for Personnel and Readiness to identify civilian employees 
capable of deploying to Afghanistan in support of U.S. Government 
initiatives; and should available DOD civilian employees not meet 
immediate needs, we will work to identify members of the Reserve 
components available for voluntary deployment, on military orders and 
in uniform, to fill the requirement.
    Question. Do you believe that Reserve personnel should be subject 
to involuntary call to active duty to respond to national or manmade 
disasters and other emergencies?
    Answer. Homeland Defense and Defense Support to Civil Authorities 
are Total Force missions. I believe a change to the law would have to 
occur to allow this. If I am confirmed I will look into all the 
ramifications involved.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) which you would seek to address if confirmed?
    Answer.

          (1) The advisability of adopting a ``train-mobilize-deploy'' 
        strategy that increases the flexibility of Reserve component 
        forces, but puts greater emphasis on pre-mobilization readiness 
        in all areas;
          (2) the importance of maintaining unit integrity wherever 
        possible to permit Reserve component units to mobilize, deploy, 
        and return as whole units with their own leaders;
          (3) the critical importance of permitting units to maintain 
        their unit integrity and resume normal activities (including 
        training) as soon as possible after returning from combat;
          (4) the critical importance of fielding modern equipment to 
        units to train with before mobilization. The Services must find 
        ways to ``horizontally field'' some amount of the most modern 
        equipment to Reserve component units for training prior to 
        mobilization. A ``train-mobilize-deploy'' force cannot see 
        modern equipment for the first time after mobilization.
                    operational and personnel tempo
    Question. Current DOD policy is that Reserve component members 
should have 5 years of dwell time for each year they are mobilized.
    What is your view of the achievability of this goal? What measures 
must be taken to be able to achieve it in 5 years or less?
    Answer. I believe the 1 to 5 dwell-time ratio is achievable and 
progress is being made toward that goal. We must ensure that continuing 
efforts to rebalance Active and Reserve component units in high-demand/
low-supply capabilities are completed and set the conditions to comply 
with the Department's 1-year involuntary mobilization policy.
    Question. In your view, how will shifting resources from Iraq to 
Afghanistan affect dwell-time ratios?
    Answer. I am not currently knowledgeable about specifics on this 
shift. My goal would be to continue policies that support the 
attainment of the 1 to 5 dwell goal for all Reserve components.
    Question. How will the end of the use of stop-loss affect dwell-
time ratios?
    Answer. I do not expect the end of stop-loss to have an effect on 
dwell-time ratios due to the small number of servicemembers affected.
    Question. What measures are being taken to respond to operational 
requirements for low-density/high-demand units and personnel whose 
skills are found primarily in the Reserve components, e.g., civil 
affairs, medical personnel, and truck drivers?
    Answer. I am told the Services are expanding capacity in selected 
areas, continuing to rebalance the Active component/Reserve component 
mix where appropriate, and using joint solutions.
    Question. In your judgment, what would be the impact on the current 
rates of operations and personnel tempo of assigning principal 
responsibility for support to civil authorities for consequence 
management of natural, domestic disasters to Reserve component forces?
    Answer. I am not sufficiently well informed to express a judgment. 
However, I believe that we need to guard against ``double-counting'' 
units. Given the current operations tempo, a unit assigned principal 
responsibility for support to civil authorities could not be expected 
to respond to an overseas deployment mission within the same timelines 
as a unit not so assigned.
                           stress on families
    Question. National Guard and Reserve families have been under great 
stress since 2001 as a result of multiple and lengthy deployments in 
OIF and OEF.
    In your view, what are the key indicators of the stress on Reserve 
component families at this time?
    Answer. Our Reserve component families do have stress . . . this is 
a part of life and certainly part of military service. More than ever 
before we are working to understand and manage these stresses. There 
are particular indicators of stress on our reservist families that we 
must stay aware of and among others these include:

          (1) Readiness--how prepared are families to support their 
        military member's service?
          (2) Satisfaction . . . how satisfied is the family with being 
        part of their particular Service?
          (3) Stress . . . What is their reported level of stress?
          (4) Retention . . . What is the family's attitude toward 
        their member staying in the Service?

    These key indicators of the stress on our families and how they are 
coping are monitored every 6 months by excellent surveys by the Defense 
Manpower Data Center.
    Question. If confirmed, what will you do to address these key 
indicators?
    Answer. OSD(RA) should emphasize two key essentials of support for 
our families:

          1. Reasonable and predictable deployments and dwell-time 
        ratios
          2. Effective means to deliver support information and 
        resources. Additionally, enhancing employer-employee 
        partnerships will mitigate a key source of stress--concern 
        about employment security.
    Question. What do you consider to be the most important family 
readiness issues in the National Guard and Reserves?
    Answer.

          (1) Providing as much predictability as possible;
          (2) effectively communication between the unit and all family 
        members;
          (3) effectively educating family members about their benefits 
        and about the predictable consequences of military service;
          (4) providing supportive services;
          (5) providing employment security; and
          (6) ensuring that the Nation realizes that families are 
        essential to military success.

    Question. If confirmed, how would you ensure support for Reserve 
component families, particularly those who do not reside near an 
active-duty military installation, related to mobilization, deployment, 
and family readiness?
    Answer.

          (1) Ensure I understand the Reserve component chiefs' 
        requirements and support them as much as I can;
          (2) continue to support Military OneSource;
          (3) continue to support the Yellow Ribbon program; and
          (4) get as much personal feed-back as possible from Reserve 
        component families to enable me to assess the effectiveness of 
        existing programs, and consider new ones.

    Question. If confirmed, what additional steps would you take to 
ensure that family readiness needs, including child care, are addressed 
and adequately resourced?
    Answer. This is another area where we must not become 
``installation minded.'' Rather, we must continually reach out to 
community partners such as the National Association of Child Care 
Resource and Referral Agencies. Other resources are well developed and 
developing by the Department of Veterans Affairs (VA) and the State 
Directors of VA, as well as the Governors and the resources they 
provide to their citizens.
    I also believe we need to increasingly emphasize the one-stop 
approach to resources that has developed through Military OneSource. 
This clearinghouse of information and resources needs to become a 
household name to all Reserve families. We will continue to 
increasingly encourage its use by Reserve families in order to link 
them to the broad array of support services in the areas where they are 
located. We must identify where there are service gaps in communities 
and build community capacity.
                               stop-loss
    Question. How will DOD implement the Secretary of Defense's recent 
direction to end the use of stop-loss without eroding unit manning and 
unit cohesion?
    Answer. I expect the Department to maintain our unit manning and 
unit cohesion through our existing assignment procedures and increasing 
use of incentive pay to stabilize units prior to deployment.
    The U.S. Army is the only remaining component that utilizes stop-
loss to meet manning shortfalls. In order to implement the Secretary of 
Defense's guidance to end the use of stop-loss, U.S. Army has set 
deadlines for the termination of the program. Active Army units 
deploying on or after January 1, 2010, will not be subject to stop-loss 
policies. Army Reserve units deploying on or after August 1, 2009, and 
Army National Guard units deploying on or after September 1, 2009, will 
not be subject to stop-loss policies.
    Incentive programs such as Deployment Extension Incentive Pay for 
soldiers assigned to deploying units that do not have sufficient 
obligated service remaining will be used to meet manning requirements.
    Question. What is your understanding of the risk the Army must 
absorb to end reliance on stop-loss, and what criteria would you apply 
in creating financial incentives for soldiers to extend on active duty 
for deployments?
    Answer. I believe the Army can manage without stop-loss through the 
use of incentives and other personnel management policies.
                        individual ready reserve
    Question. DOD established a policy in 2005 mandating the discharge 
of officers in the IRR who are beyond their military service 
obligations (MSO) unless the officer positively elects to remain in the 
IRR. Meanwhile, the Commission on the National Guard and Reserves has 
found that accessing the IRR as a viable source of manpower for the war 
has been problematic and that using the IRR as a solution for unit 
manning is a failed concept.
    What are your views on the proper role of the IRR in force 
management planning?
    Answer. The IRR provides the Military Services with depth in force 
management planning in both operational and strategic roles. This pool 
of pre-trained individuals can, if actively managed, significantly 
enhance a Service's flexibility to surge as force requirements dictate.
    Question. If confirmed, what changes, if any, do you foresee making 
to the IRR recall policy?
    Answer. IRR recall policy is a Service option, utilized as manpower 
requirements necessitate. I am not presently aware of a need for DOD to 
significantly affect the Services IRR recall policy or process.
    Question. What are your views about policies affecting continued 
service by officer and enlisted personnel in the Reserve components who 
have fulfilled their MSO?
    Answer. The established DOD policy is a necessary force management 
tool. Officers and enlisted who have fulfilled their MSO should be 
evaluated by their respective Services for mobilization potential. 
Officers shall be advised to resign, request transfer to the Standby 
Reserve, or actively participate in the Reserves. Enlisted shall also 
be required to participate or be denied reenlistment. Leveraged 
technology and enhanced training opportunities will improve readiness 
for those who remain active participants.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to active duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the decision on that request?
    Answer. My understanding is the current system of delay/exemption 
has worked well. I do not anticipate making significant changes unless 
circumstances dramatically change.
    Army IRR mobilizations were capped at 6,500 in January 2004. Marine 
Corps IRR mobilizations were capped at 2,500 in August 2006. No more 
than 6,500 soldiers or 2,500 marines can be on orders at any one time.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Force?
    Answer. The IRR is fundamental to the All-Volunteer Force and an 
important manpower asset. The nation needs a strategic, as well as an 
Operational Reserve. The IRR provides the primary source of pre-trained 
individual manpower for the Strategic Reserve.
  medical and dental readiness of national guard and reserve personnel
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. I would review the medical and dental readiness programs 
across the Services, to include command emphasis that is a cornerstone 
for success. Success of medical and dental readiness is based on three 
factors: (1) accurate reporting of readiness statistics; (2) fixing 
minor medical and dental problems; and (3) command emphasis to ensure 
timely evaluation of members. An electronic readiness record for the 
Reserve component is vital to this process and linkages must be made 
with the Active component systems for efficiency and continuity. 
Additionally, incentives should be in place to motivate members to 
maintain readiness, a challenge that cannot be accomplished without a 
commitment from the Services' leadership. To succeed in improving 
medical and dental readiness reporting, policies must include 
standardized reporting capabilities with emphasis placed on command 
accountability for unit readiness.
    Question. How would you improve upon the ability to produce a 
healthy and fit Reserve component?
    Answer. Recognizing the value of preventative health practices and 
providing individuals access and incentives to participate in such 
practices are the cornerstones for a healthy and fit Reserve component. 
Encouraging members to maintain optimal health, implementing policies 
that enable them to do so, and authorizing leadership to provide the 
means to enforce such policies is critical to a lifetime of fitness for 
our operational Reserve Forces.
                       health care for reservists
    Question. Members of the Reserve and National Guard who are ordered 
to active duty for more than 30 days are eligible for the same health 
care and dental benefits under TRICARE as other active duty 
servicemembers.
    What are your views on the adequacy of Reserve health care?
    Answer. Great strides have been made towards the improvement of 
health care across the Reserve components. TRICARE Reserve Select (TRS) 
is now available to the Selected Reserve and their families, the 
exception being those members who are eligible for the Federal Employee 
Health Benefits Plan. This, however, has not resolved all of the health 
problems our Reserve and Guard members face during their continuum of 
service. There are gaps in care for those members who have service-
connected illness or injuries that are not diagnosed until their 
TRICARE eligibility has expired. There are also gaps in health care for 
IRR who are mobilized or volunteer for service. This group is not 
currently eligible for TRICARE plans other than dental when not on 
active duty orders, yet they are expected to maintain their medical and 
dental readiness in order to be eligible to participate.
    Question. Do you have any suggestions for improving continuity of 
care for Reserve members and their families?
    Answer. Since the inception of the Total Force and now an 
Operational Reserve, the fragmented health care system has impacted not 
only our members, but also their families. Many continuity of care gaps 
have been bridged through the expansion of TRS, but gaps still remain. 
Selected Reserve members and their families now have the option of a 
continuum of care through the TRICARE network as long as the member 
participates in the Selected Reserve. Members of the IRR and their 
families do not have this option. We need to look at the feasibility of 
somehow filling this gap in coverage for the small group of IRR members 
who actively participate.
    We must expedite in the development of an electronic health record 
to provide adequate care for our Reserve component members. This record 
should follow the members from enlistment through retirement with a 
mechanism for transferring the information to the Veterans 
Administration for follow on care.
    We must also look for ways to expand the number of health care 
providers who will accept TRICARE.
    Question. TRS authorizes members of the Selected Reserve and their 
families to use TRICARE Standard military health care program at a 
subsidized rate when they are not on active duty.
    What is your assessment of TRS?
    Answer. TRS, established in 2005, has been enhanced to provide 
nearly universal coverage to most members of the selected Reserve. Yet 
studies have shown that the number of uninsured reservists has not 
significantly changed. Further, there is no evidence that the increase 
in health care coverage has improved medical readiness or had an effect 
on recruiting and retention. So far, very few Reserve members have 
enrolled in TRS--less than 4 percent of those eligible.
    At the beginning of January 2009, the monthly premiums for TRS were 
significantly reduced, dropping from $81 to $47.51 for single coverage 
and from $253 to $180.17 for family coverage. It remains to be seen 
whether this reduction in premiums will have a significant impact on 
the number of members electing to purchase TRS. However, I understand 
the enrollment in TRS continues to increase, so this change seems to be 
helping. We need to evaluate how to leverage this valuable program to 
improve the health and readiness status of our Reserve component 
members. I believe we need to do a better job of educating leaders 
about TRS so they can better inform their troops.
    Question. Will TRS enhance recruiting for the Reserve components?
    Answer. What we have seen with TRS is that it has not been 
successfully used as either a recruiting or retention tool. I 
understand that the enrollment rate has been steadily increasing, 
especially since the premiums were reduced significantly in January. 
Rather than discount the value of TRS as a recruiting or retention 
tool, we need to re-evaluate TRS in the current economic light. With 
the high rates of unemployment and the increase in the number of 
uninsured in the general population, TRS may be regarded as a tangible 
incentive to a prospective recruit and may provide an affordable 
continuum of health for the member who might otherwise consider 
separating. We need to re-energize a communication plan to educate our 
members and potential members about the value of TRS for our members 
and their families. We should also explore the best ways to use TRS in 
connection with our efforts to collaborate more effectively with 
employers.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in recent years and 
recommendations of the Commission on the National Guard and Reserves 
have proposed numerous changes to the roles and responsibilities of the 
National Guard and Reserves. Several of the proposed changes have been 
implemented, and numerous others are under consideration.
    How do you assess the changes in the roles, mission, and 
authorities of the Chief of the NGB and the Army and Air National 
Guard?
    Answer. Positive. The 2008 DOD directive codified the organization, 
management, responsibilities and function, relationships and 
authorities of the Chief, NGB. As this new relationship matures, I am 
sure this will enhance the effectiveness of the Department.
    Question. In your view, do the current Army and Air Force processes 
for planning, programming, and budgeting sufficiently address the 
requirements of the Army and Air National Guard?
    Answer. I am not sufficiently well informed to answer this 
question.
    Question. What is the appropriate role of the Chief of the NGB in 
this regard?
    Answer. The role of the Chief, NGB is that of advisor to the 
Secretary of the Army and Secretary of the Air Force in addition to the 
combatant commanders. This should ensure that the Chief, NGB is well 
positioned to fully engage in the program-planning-budgeting system 
process to identify NGB and National Guard requirements.
                      reserve forces policy board
    Question. What is your view of the appropriate role, function, and 
membership of the Reserve Forces Policy Board (RFPB)?
    Answer. I believe the Secretary's recent report to Congress 
regarding the RFPB laid out an extremely effective proposal for 
organizing and utilizing the RFPB.
               employment of full-time support personnel
    Question. Active Guard and Reserve personnel providing full time 
support are not authorized to perform State active duty missions even 
in emergencies or disaster situations. On occasion, this can deny an 
important resource, e.g., aviation capability, to a State Governor in 
need of assistance.
    Do you think that, as a matter of policy, Active Guard and Reserve 
members should be prohibited in all cases from performing State active 
duty missions?
    Answer. If the law prohibits Active Guard and Reserve personnel 
providing full-time support from performing State active duty missions 
even in emergencies or disaster situations, I would expect the DOD to 
follow the law.
    Question. Under what circumstances, if any, do you believe such use 
should be authorized?
    Answer. If confirmed, I would look forward to examining this issue 
more closely and, if appropriate, providing the Under Secretary of 
Defense for Personnel and Readiness and the Secretary of Defense with 
recommendations for change.
              quadrennial review of military compensation
    Question. Last year, the Department completed work on the 10th 
Quadrennial Review of Military Compensation (QRMC), releasing Volume I 
of its report in February 2008 and Volume II in July 2008. Among other 
recommendations, the QRMC proposes a new defined benefit retirement 
plan that more resembles the benefits available under the Federal 
Employee Retirement System than the current military retirement 
benefit.
    What is your assessment of the QRMC recommendations, particularly 
the proposed new defined retirement plan?
    Answer. While similar proposals were entertained by the Defense 
Advisory Committee on Military Compensation (DACMC), my concern is that 
any proposed retirement alternative replicates the experience mix of 
personnel in the current system and the desired career lengths 
determined by the RC force management plans.
    Question. What recommendations, if any, would you propose that 
Congress implement?
    Answer. If Congress chooses to consider the QRMC's recommendations 
for a defined benefit and contribution retirement plan, it should also 
agree to conduct the QRMC-proposed multiyear demonstration project 
prior to force-wide implementation, in order to reduce the 
uncertainties and risks associated with a transition to a new 
retirement system.
    Question. Are the pay and benefits for Reserve personnel 
appropriate for the types of service they provide?
    Answer. Although we have seen significant enhancements in military 
pay and benefits in the past 7 years, I plan to continue ongoing 
efforts to achieve equity in Reserve compensation.
    Question. If confirmed, would you recommend any changes to Reserve 
personnel compensation policies and statutes?
    Answer. A few perceived inequities are still a matter of concern 
for certain Reserve component members. I will conduct a close review of 
certain basic allowances and reimbursements. The actions Congress has 
taken with regard to Reserve retirement have been positive.
                            gi bill benefits
    Question. Last year, Congress passed the Post-September 11 Veterans 
Educational Assistance Act that created enhanced educational benefits 
for servicemembers who have served at least 90 days on active duty 
since September 11. The maximum benefit would roughly cover the cost of 
a college education at any public university in the country.
    What is your assessment of the effect of this act on recruiting and 
retention in the Reserve components?
    Answer. I believe it is too early to assess the post-September 11 
effects on recruiting and retention, but I will be closely monitoring 
its implementation and corresponding RC enrollment.
    Question. What is your understanding of the sufficiency of the 
implementation plan for the transferability provisions contained in the 
act?
    Answer. I understand that the implementation of the transferability 
provisions of the post-September 11 GI Bill have been coordinated 
within the DOD and are in the final stages of interagency coordination. 
Also, the proposed policies and procedures have been furnished to the 
field and fleet and DOD expect the final results to mirror those 
provisions. The Reserve components have been integral in the 
development of these polices and are poised to implement.
    Question. Montgomery G.I. Bill educational benefits for members of 
the Selected Reserve under chapter 1606 of title 10, U.S.C., are an 
important recruiting and retention incentive. However, the level of the 
monthly benefit has not risen proportionately over time with that of 
Montgomery G.I. Bill benefits payable to eligible veterans under 
chapter 30 of title 38, U.S.C.
    What is your view of the adequacy of the current monthly benefit 
levels under the Selected Reserve Montgomery G.I. Bill?
    Answer. Educational assistance benefits under chapter 1606--the 
Montgomery G.I. Bill-Selected Reserve--have not kept pace with the 
rising cost of college education; in 2008 the monthly benefit level of 
$317 covered only 22 percent of tuition, fees, room and board.
    Question. Would you recommend any changes to this program?
    Answer. I believe that an increase in the monthly benefit is 
necessary to maintain the attractiveness of the Montgomery G.I. Bill-
Selected Reserve as a force management tool.
 science and technology academies reinforcing basic aviation and space 
                     exploration (starbase) program
    Question. The DOD STARBASE program is an effective community 
outreach program that operates under the oversight of the Assistant 
Secretary of Defense for Reserve Affairs. The goal of the DOD STARBASE 
program is to raise the interest and improve the knowledge and skills 
of at-risk youth in math, science, and technology by exposing them to 
the technological environment and positive role models found at 
military bases and installations. It currently operates at 54 locations 
throughout the United States.
    What are your views about the STARBASE Program?
    Answer. The President has taken a position to make math and science 
education a national priority. The program supports this effort. I have 
had an opportunity to read the DOD STARBASE Program Annual Report and 
agree with my predecessor that ``the strength of the program lies in 
the three-way partnership between the military, the local communities 
and the school districts. . . . In the end, the success of the program 
depends on the student experience and the quality instruction delivered 
by DOD STARBASE Program staff and military volunteers.'' General 
Renuart, Commander, North American Aerospace Defense Command and 
NORTHCOM stated ``The partnership among local military installations, 
school districts, and the surrounding communities created by 
participation in the DOD STARBASE Program ensures all are valued and 
equal stakeholders in the education of our children and that we are all 
accountable for the product: well-educated, articulate young men and 
women who are ready to take on the environment they will see in their 
future.''
    Question. Do you believe that Guard and Reserve personnel should be 
involved in the STARBASE program?
    Answer. Yes, because the students benefit by becoming exposed to 
our military culture which values knowledge, opportunity, and 
diversity. In the report, General Renuart also stated that military 
personnel get the chance to act as a role model, to teach 
responsibility and leadership, and to shape the lives of these young 
students. In addition, exposing the students to our wonderful role 
models, they become embraced to core values like service, integrity, 
and pursuit of excellence.
    Question. Do you believe that it is appropriate to fund this 
program through the DOD budget?
    Answer. Yes, for the reasons stated in my answers to the previous 
questions. Furthermore, in the report General Chilton, Commander of 
U.S. Strategic Command, stated that DOD STARBASE is a DOD program that 
provides opportunities where young students can learn, pursue their 
dreams, and make them come true. Students get to see and do, 
experiencing first hand the wonders of learning, and get them 
interested in science, technology, math and engineering.
                 national guard youth challenge program
    Question. In 1993, the National Guard, as part of their community 
mission, established the Youth Challenge Program to help at-risk youth 
improve their life skills, education levels, and employment potential. 
In 1998, the Federal share of funding for this program was reduced to 
75 percent, with a subsequent annual decrease of 5 percent each year 
through 2001, so that the Federal share is now 60 percent. Advocates 
for Youth Challenge have urged that the Federal Government fund 100 
percent of the costs during the first 2 years of operation of a State 
program and restoration of the 75 percent Federal and 25 percent State 
cost sharing after 2 years in order to increase the number of youths 
who are able to participate and to facilitate more states offering 
programs.
    Question. What are your views about the National Guard Youth 
Challenge Program?
    Answer. The President has taken a position to address the high 
school dropout crisis. General McKinley, Chief of the NGB, acknowledged 
that the National Guard Youth Challenge Program helps address this 
dropout crisis. It has been reported that over 84,700 students have 
successfully graduated from the program, with 80 percent earning their 
high school diploma or general education degree. On average, 26 percent 
go on to college, 25 percent enter the military, and the remainder join 
the work force in career jobs. A longitudinal study conducted by MDRC 
reported that the early results of their evaluation suggests that 
partway through the cadets Youth Challenge experience, they are better 
positioned to move forward in their transition to adulthood.
    Question. Do you believe this Program should be funded through the 
DOD budget, or through some other means?
    Answer. The National Guard Youth Challenge Program should be funded 
and managed by the DOD and the NGB because of the strong military 
linkage which is a key element to the program's success.
    Question. What is your recommendation regarding the appropriate 
level of Federal (versus State) funding of this program?
    Answer. The change to the Federal share is appropriate and similar 
to other cost share requirements. In addition, reducing the State cost 
share burden would make the continued viability of the National Guard 
Youth Challenge Program more likely during these economic conditions.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I agree.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Reserve Affairs?
    Answer. Yes, I agree.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes, I agree.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I agree.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                  stress on reserve component families
    1. Senator McCain. Lieutenant General McCarthy, you discussed key 
indicators of stress on reservists' families in your responses to the 
committee's advance policy questions. You stated that efforts are being 
made to understand and manage these stresses. What do you consider to 
be the most significant indicators of stress as a result of 
deployments?
    General McCarthy. I am responding with a personal opinion, rather 
than a professional one, because I am not trained in this area. The 
most obvious indicators of family stress seem to me to be: changes in 
overall divorce rates; increase in incidents of domestic discord; 
declines in school performance by the children of Reserve component 
members; and increase in suicides involving Reserve component family 
members. Again, speaking as someone without training in sociology and 
related fields, precisely assessing these issues would seem very 
difficult unless one had baseline measurements that were drawn at some 
period shortly before partial mobilization began in 2001.

    2. Senator McCain. Lieutenant General McCarthy, please elaborate on 
the surveys that are being conducted and how accurate you consider them 
to be and what actions you will take, if confirmed, to gauge the well-
being of Reserves and their families.
    General McCarthy. If confirmed, I will rely heavily on professional 
collection and analysis of data by agencies such as the Defense 
Manpower Data Center. Its ``2008 Survey of Spouse Perceptions of 
Deployment Support'' was the primary study to which I referred in my 
previous responses. However, I also believe strongly in listening to 
troops, their commanders and family members in attempting to assess 
their morale and level of satisfaction. As Secretary Gates has said, 
there is no substitute for first-hand contact with our forces and their 
families.

           application of goldwater-nichols act to reservists
    3. Senator McCain. Lieutenant General McCarthy, you have expressed 
the view that the requirements of the Goldwater-Nichols Act should be 
expanded to apply to more reservists and that greater educational 
opportunities need to be made available to reservists and guardsmen. 
Please explain your thinking in this regard.
    General McCarthy. (a) I generally concur with the recommendations 
of the Commission on National Guard and Reserves in this area, and I 
believe Secretary Gates' directive on implementing these 
recommendations is the correct way ahead. (b) The active component was 
significantly improved by the original congressional mandates for joint 
education and qualification. The Reserve component will be similarly 
improved if those mandates are extended to the Reserve components in an 
achievable manner. (c) Extending the requirement for Reserve component 
personnel to become ``joint qualified'' will require expansion and 
improvement of the way ``joint'' education is delivered. DOD should be 
authorized to make greater use of distance learning in this area for 
both Active and Reserve component personnel. Doing so will increase 
accessibility, and I believe it can be done without reducing the 
quality of the educational experience. Assessment and calculation of 
``joint service credit'' will also require some adjustment to comport 
with the reality of Reserve component assignment and service patterns.

    4. Senator McCain. Lieutenant General McCarthy, where are the 
deficiencies today, and what do you consider to be the most pressing 
changes that should be made?
    General McCarthy. As stated above, I believe accessibility to joint 
education, and opportunities for Reserve component personnel to serve 
in joint assignments should both be expanded.

    5. Senator McCain. Lieutenant General McCarthy, while there are 
many calls today for greater opportunities for Reserve and Guard 
personnel to serve in senior leadership positions, I have concerns 
about the adequacy of general officer development in the Guard and 
Reserve and whether the Services and the Office of the Secretary of 
Defense can predictably produce a pool of officers with the necessary 
experience and qualifications to assume the most senior command and 
staff positions. Can you comment on your experience and on what steps 
should be taken?
    General McCarthy. I am confident that the talented men and women 
who serve as flag and general officers in the Reserve components will 
rise to meet any challenge. Given the education, training and 
experience, they will match the development of their age and grade 
peers in the active component. We need a human capital strategy that 
views the most senior officer and enlisted personnel as ``talent 
resources'' to be used where they can best contribute to national 
defense and security, without regard to the component from which they 
are drawn.

                          tricare for reserves
    6. Senator McCain. Lieutenant General McCarthy, there has been a 
recent surge in enrollment in the program created by Congress to allow 
reservists in a non-active status and their families to enroll in the 
TRICARE program. Has this program met the goals of improving retention 
in the Reserves as well as improving continuity of health care services 
and if not, how would you seek to improve it, if confirmed, as 
Assistant Secretary?
    General McCarthy. I have been told that, at present, retention in 
all services within the Reserve component is meeting desired levels. I 
am sure that TRICARE Reserve Select (TRS) is one factor in a Reserve 
component member's decision to remain in uniform. How much any one 
factor influences such a complex decision probably cannot be stated 
with absolute certainty. TRS does contribute significantly to 
``continuity of health care'' in that in enables the family of a 
servicemember to remain in the same healthcare network whether the 
sponsor is on or off active duty. I believe we still need to improve 
the awareness of servicemembers and their families about how TRS works. 
I also believe we should look for ways to expand the network of health 
care providers who will accept TRICARE, and that we should find a cost-
effective way to extend TRS to members of the Individual Ready Reserve. 
Lastly, I believe we should engage in discussions with the Nation's 
employers to find out whether TRS can be one element of a ``win-win'' 
relationship between them and their Reserve component employees.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Dennis M. McCarthy, 
USMC (Ret.), follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 1, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dennis M. McCarthy, of Ohio, to be an Assistant Secretary of 
Defense, vice Thomas Forrest Hall.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Dennis M. McCarthy, 
USMC (Ret.), which was transmitted to the committee at the time 
the nomination was referred, follows:]
    Biographical Sketch of Lt. Gen. Dennis M. McCarthy, USMC, (Ret.)
    Since 2005, Dennis McCarthy has been Executive Director of the 
Reserve Officers Association of the United States. This 67,000 member 
organization is chartered by Congress to ``support and promote . . . a 
military policy for the United States that will provide adequate 
national security.'' He has written extensively on Reserve and National 
Guard issues, and worked closely with the Commission on National Guard 
and Reserves and other groups studying Reserve component policy.
    Lieutenant General McCarthy began his military service in combat in 
Vietnam, and remained on active duty until 1978. He then served as an 
infantry officer in the ``traditional Reserve,'' and was recalled to 
active duty for Operations Desert Shield/Desert Storm and on several 
subsequent occasions.
    During the course of his career in uniform, he commanded eight 
different Marine or joint organizations for more than 160 months. Among 
these commands was the 3rd Marine Division where he was the first 
Reserve General Officer to command an active duty Marine Division.
    He also served as a senior staff officer in a number of Marine 
headquarters and unified commands. He served on the Secretary of 
Defense Reserve Forces Policy Board. During Operations Desert Shield 
and Desert Storm he was recalled to active duty to lead significant 
pre-deployment training programs at the Marine Corps Air Ground Combat 
Center at Twentynine Palms, CA. He was Vice Director of Operations at 
the Atlantic Command during parts of Southwest Asia Operations Desert 
Thunder I and II, Operation Desert Fox and during U.S. operations in 
Kosovo. He was Atlantic Command's Director of Operations and Plans in 
that campaign's immediate aftermath.
    He assumed command of Marine Forces Reserve in June 2001 and led 
the Force throughout the first 4 years of what would become the largest 
mobilization of Reserves in Marine Corps history. General McCarthy is a 
graduate of St. Ignatius High School in Cleveland, the University of 
Dayton, and the Capital University Law School. While serving as a 
traditional reservist from 1978 to 1999, he practiced law in Columbus, 
OH, as a civil litigator. He was also actively involved in legal 
education as a lecturer and adjunct faculty member.
    Since his retirement from the Marine Corps, General McCarthy has 
served on several corporate boards, and is a ``Leader in Residence'' at 
the Franklin University Leadership Center in Columbus, OH.
    He has been married for almost 42 years to Rosemary Bednorz 
McCarthy of St. Paul, MN, and Springfield, OH. They have two sons, both 
of whom are military officers (one in the Army National Guard and one 
in the Marine Corps Reserve) and three grand children. Mrs. McCarthy is 
widely recognized as a leader and innovator in developing and 
supporting family readiness programs for the Marine Corps and its 
Reserve.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. 
Dennis M. McCarthy, USMC (Ret.), in connection with his 
nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Dennis M. McCarthy.

    2. Position to which nominated:
    Assistant Secretary of Defense for Reserve Affairs.

    3. Date of nomination:
    June 1, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 1, 1945; Cleveland, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rosemary Bednorz McCarthy.

    7. Names and ages of children:
    Sean V. McCarthy, 40; Michael D. McCarthy, 33.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. Ignatius High School (Cleveland) 1959-1963; Diploma (1963).
    University of Dayton (Ohio) 1963-1967; BA (1967).
    Capital University Law School (Ohio) 1972-1975; JD (1975).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1988-2000, McCarthy, Palmer Volkema and Thomas, Co. LPA (Partner).
    1999-2001, U.S. Marine Corps (Director, Reserve Affairs Division, 
HQMC).
    2001-2005, U.S. Marine Corps (Commander, Marine Forces Reserve and 
Marine Forces North).
    2005-present, Reserve Officers Association (Executive Director).
    2006-present, Medifast Incorporated (Indep. Director and Vice 
Chairman of the Board).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1967-2005, USMC.
    1997-2001, Reserve Forces Policy Board, Department of Defense.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Reserve Officers Association (Executive Director).
    Rivada Networks LLC (Board Member).
    Medifast Inc. (Board Member).
    Smoothie Sailing LLC, Franklin University Leadership Center 
(consultant).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Reserve Officers Association (Life Member).
    Marine Corps Reserve Association (Life Member).
    Ohio State Bar Association.
    Columbus Bar Association.
    Franklin University Leadership Center.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Military: DSM, JSSM, MSM, NCM (with V), CAR, unit and campaign 
decorations.
    ROA Minuteman Hall of Fame.
    Ohio Academy of Trial Lawyers Distinguished Service Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Officer'' ROA Editorials (10/year) since August 2005.
    ``Continuum of Service,'' Joint Forces Quarterly, Vol 36, (Quarter 
1, 2005).
    ``A Continuum of Service,'' Armed Forces Journal (September 2008).
    ``We need another `Greatest Generation,' '' Naval Institute 
Proceedings (March 2004).
    ``Combat Arms Warrant Officers,'' Marine Corps Gazette (June 2008).
    ``Commander's Intent,'' Marine Corps Gazette (est. Sept. 2001).
    Numerous legal articles and book chapters, all published before 
1999.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Reserve Officers Association Testimony: ``Fiscal Year 2009 Reserve 
Component Budget'' Hearing before the Subcommittee on Defense 
Appropriations, Appropriations Committee, U.S. Senate, June 4, 2008.
    Reserve Officers Association Testimony: ``Fiscal Year 2008 Reserve 
Component Budget'' Hearing before the Subcommittee on Defense 
Appropriations, Appropriations Committee, U.S. Senate, May 16, 2007.
    Reserve Officers Association Testimony: ``The Reserve Components of 
our Armed Forces'' Hearing before the Subcommittee on Defense 
Appropriations, Appropriations Committee, U.S. Senate, May 24, 2006.
    Reserve Officers Association Testimony: TRICARE'' before the 
Subcommittee on Military Personnel, Senate Armed Services Committee, 
U.S. Senate, March 14, 2006.
    United States Marine Corps Reserve Commander, Marine Forces Reserve 
Testimony: ``Reserve Matters'' before the Subcommittee on Personnel, 
Senate Armed Services Committee, U.S. Senate, 13 April 2005.
    United States Marine Corps Reserve Commander, Marine Forces Reserve 
Testimony: ``Fiscal Year 2005 National Guard & Reserve Budget'' before 
the Subcommittee on Defense Appropriations, Appropriations Committee, 
U.S. Senate, April 7, 2004.
    United States Marine Corps Reserve Commander, Marine Forces Reserve 
Testimony: ``Reserve Component Transformation and Relieving the Stress 
on the Reserve Component'' before the Subcommittee on Total Force, 
House Armed Services Committee, U.S. House of Representatives, March 
31, 2004.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Dennis M. McCarthy.
    This 10th day of June, 2009.

    [The nomination of Lt. Gen. Dennis M. McCarthy, USMC 
(Ret.), was reported to the Senate by Chairman Levin on June 
24, 2009, with the recommendation that the nomination be 
confirmed. The nomination was confirmed by the Senate on June 
25, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. Jamie M. Morin by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I am familiar with the history of the Goldwater-Nichols Act 
and strongly support its intent. The Act has been extremely successful 
to date, and has also benefitted over the years from periodic 
incremental changes to reflect lessons learned and the changing world 
situation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. At present, I do not see any needs for modifications. If I 
am confirmed and I identify areas that I believe merit changes, I will 
propose those changes through the established process.
     duties of the assistant secretary of the air force (financial 
                              management)
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force (Financial Management)?
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) is principally responsible for the 
exercise of the comptrollership functions of the Air Force, including 
all financial management functions. Additionally, this individual is 
responsible for all financial management activities and operations of 
the Air Force and advising the Secretary of the Air Force on financial 
management.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. For the last 6 years, I have served as the senior defense 
analyst at the Senate Budget Committee, with lead responsibility for 
the committee's work on the defense, foreign affairs, and intelligence 
budgets. Budget Committee Chairman Senator Kent Conrad has been 
particularly interested in Air Force matters, and directed me to devote 
particular effort to reviewing the Air Force budget request. This 
experience has familiarized me with many Air Force programs and has 
also allowed me to get to know many of the senior Air Force leaders, 
both civilian and military. Additionally, given the committee's 
interest in overall Federal spending and financial management, I have 
been exposed to many of the financial management challenges which exist 
throughout the Department of Defense (DOD). Earlier in my career, I 
worked as an economist and strategy consultant. I have also held 
fellowships from various public policy and defense think tanks and 
spent 4 months during graduate school working in the Office of the 
Secretary of Defense.
    My academic preparation includes a Ph.D. in political science, 
where I focused my research on congressional involvement in the defense 
budgeting process, as well as an M.Sc. in public administration. My 
training included econometric methods and similar rigorous quantitative 
work that will help me oversee the Air Force's economics and cost 
estimation operations, if I am confirmed. These specialized graduate 
studies complement my undergraduate work in national security policy.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the Assistant 
Secretary of the Air Force (Financial Management)?
    Answer. Although I have some insight into Air Force financial 
operations, if confirmed I will need to develop a much deeper 
understanding of the operational challenges facing the Air Force 
financial management organization, particularly when it comes to 
information technology development and audit readiness projects. As a 
general matter, I believe strongly in the need for managers to 
understand the operational processes of their organizations, so if 
confirmed I would intend to devote a portion of my time to 
familiarizing myself with those processes.
                             relationships
    Question. What is your understanding of the relationship between 
the Assistant Secretary of the Air Force (Financial Management) and 
each of the following?
    The Secretary of the Air Force.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) is the principal advisor to the 
Secretary of the Air Force on financial management matters and performs 
other duties as the Secretary may prescribe.
    Question. The Under Secretary of the Air Force.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) is also the principal advisor to the 
Under Secretary of the Air Force on financial management matters and 
performs other duties as the Under Secretary may prescribe.
    Question. The other Assistant Secretaries of the Air Force.
    Answer. It is my understanding that the Assistant Secretary 
(Financial Management) works closely with the other Assistant 
Secretaries of the Air Force by providing advice and input on financial 
matters, as well as financial management policy leadership, guidance, 
implementation and coordination, as appropriate.
    Question. The General Counsel of the Air Force.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) has a close working relationship with 
the General Counsel of the Air Force and Air Force fiscal counsels to 
assure an understanding of any and all legal implications in Air Force 
financial matters and compliance with the appropriate rules and 
regulations.
    Question. The Director of the Air Force Business Transformation 
Office.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) works with the Air Force Chief 
Management Officer and Air Force Business Transformation Office (BTO) 
in support of their business transformation initiatives. These 
initiatives align with the mission of the Business Transformation 
Agency (BTA) of executing enterprise level business transformation for 
DOD.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) works closely with the Under Secretary 
of Defense (Comptroller) in the development and execution of financial, 
budgetary, and fiscal policies as they relate to the Air Force.
    Question. The Deputy Chief Management Officer of DOD.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) would support the Deputy Chief 
Management Officer of DOD in close coordination with the Air Force 
Chief Management Officer in their responsibilities to manage the 
business operations of the Department as they relate to and support the 
business operations of the Air Force.
    Question. The Director of the BTA.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) works with the Director of the BTA to 
accomplish the BTO mission of executing enterprise level business 
transformation.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration/Chief Information Officer.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) works closely with the Assistant 
Secretary of Defense (Networks and Information Integration) to ensure 
that Department of the Air Force's diverse and extensive information 
technology systems are properly managed and resourced to accommodate 
and perform the full spectrum of financial management functions and 
reporting which is required to achieve the Air Force's financial 
management reporting goals.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) would work with the Director, Program 
Analysis and Evaluation to ensure the program priorities of the Air 
Force are well understood and thorough Air Force program reviews are 
conducted within the framework of the Planning, Programming, Budgeting, 
and Execution process and timetables. Additionally, the Assistant 
Secretary of the Air Force (Financial Management) works closely with 
the Deputy Chief of Staff for Strategic Plans and Programs to convey 
and communicate the results to Air Force leadership, and ensures the 
results of the program reviews are in line with overall DOD strategy.
    Question. The Chief of Staff of the Air Force.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) would work closely with the Chief of 
Staff to provide support required in order to execute his duties and 
responsibilities to achieve the overall mission of the Air Force.
    Question. The Assistant Secretaries for Financial Management of the 
Army and the Navy.
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) works closely with the Assistant 
Secretaries of the Army and Navy in the area of financial management in 
an effort to facilitate integrated and coordinated decisionmaking at 
all levels and achieve the strongest cooperation between the Services 
possible. A cordial and productive working relationship with these 
colleagues and the Under Secretary of Defense (Comptroller) is 
essential to successfully supporting the efforts of the Secretary of 
Defense.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force (Financial 
Management)?
    Answer. In my opinion, the primary challenge the Assistant 
Secretary of the Air Force (Financial Management) will face is the need 
to help develop and implement a balanced Air Force budget at a time 
when our Nation faces a serious fiscal situation and must provide the 
resources needed to meet wartime requirements. Improving the 
transparency and fidelity of the Department's financial processes is 
essential to ensure that senior leadership can make the best possible 
decisions about prioritization among military requirements.
    Question. Assuming you are confirmed, what plans do you have to 
address these challenges?
    Answer. If confirmed, I will work closely with the Air Force senior 
leadership to develop workable budgets which rebalance Air Force 
programs to address our Nation's commitment to our uniformed 
servicemembers, provide the capabilities needed in the wars we are 
fighting today, and prepare for the uncertain conflicts of the future.
    Additionally, I will work with Air Force and DOD leadership to 
enhance our efforts to improve business processes and systems, and will 
seek to ensure that the Air Force can recruit, train, and retain a work 
force that can meet defense financial management needs into the 21st 
century. I will play an active role in the Air Force's part of the 
Financial Improvement and Audit Readiness (FIAR) and Enterprise 
Transition Plan (ETP) programs and will provide aggressive leadership 
and support for my staff in these critical efforts.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Air Force (Financial Management)?
    Answer. The Secretary and Chief of Staff of the Air Force have 
indicated that their top five priorities are to reinvigorate the Air 
Force nuclear enterprise, to partner with the joint and coalition team 
in winning today's fight, to develop and care for airmen and families, 
to modernize equipment, organizations, and training, and to recapture 
acquisition excellence. If confirmed, my intention would be to work 
within the Air Force corporate process to ensure that these priorities 
are appropriately resourced. Within the Financial Management 
organization itself, I would intend to focus on three main priorities: 
improving the transparency and fidelity of the Department's financial 
processes in order to provide senior leaders with a clearer picture of 
the Air Force's fiscal situation, developing and empowering financial 
management professionals across the Air Force, and enhancing Air Force 
cost estimation capabilities as part of the Department's commitment to 
improving the defense acquisition processes.
      civilian and military roles in the air force budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Air Force 
(Financial Management) and the senior military officer (the Director, 
Air Force Budget) responsible for budget matters in the Air Force 
Financial Management office in making program and budget decisions, 
including the preparation of the Air Force Program Objective 
Memorandum, the annual budget submission, and the Future Years Defense 
Program (FYDP)?
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force (Financial Management) has the responsibility and authority 
for all budget matters within the Air Force. The Deputy Assistant 
Secretary for Budget, the senior military officer responsible for Air 
Force budget matters in the Financial Management office, reports 
directly to the Assistant Secretary of the Air Force (Financial 
Management). As the primary advisor to the Assistant Secretary on 
program and budget issues, the Deputy Assistant for Budget is 
responsible for the formulation, justification and execution of the Air 
Force budget, including the preparation of the Air Force Program 
Objective Memorandum and the FYDP.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and attempts at efficiencies, problems with 
financial management and data continue.
    What do you consider to be the top financial management issues that 
must be addressed by the Department of the Air Force?
    Answer. The most recent Air Force financial statements include 3 
pages of discussion of material weaknesses or significant deficiencies 
in General Fund financial reporting. Many audit reports confirm these 
weaknesses. Continued improvement in business processes and operations 
is the top priority, followed by continued improvements in business 
systems (though some critical business systems are joint) and 
addressing the organizational culture to embrace and support these 
system and process improvements.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Air Force?
    Answer. If confirmed, my initial plan to ensure financial 
management progress continues would be to: evaluate, support and 
enhance the Air Force efforts to improve business processes and 
operations (including to support the Air Force's compliance with the 
FIAR and ETP programs); communicate the benefits of process and systems 
improvements; enhance training and education across the financial 
management spectrum; and work with other parts of the Department to 
benefit from best practices and exploit synergies.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by DOD and the Department of the Air 
Force?
    Answer. Although DOD and the Department of the Air Force are 
different from the private sector in their mission and in many 
operational aspects, there are certainly a number of financial and 
management practices which are similar to the private sector and could 
benefit from best practices being used elsewhere. If confirmed, I would 
encourage the sharing of best practices with the other Services, 
agencies, and departments in the Federal Government, but would also 
strongly advocate awareness and adoption of private sector practices 
where the Air Force would benefit from emulating them.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Air Force's 
financial operations to determine if its plans and initiatives are 
being implemented as intended and anticipated results are being 
achieved?
    Answer. Performance metrics play a significant role in the success 
of any financial operation. I am not sufficiently familiar with the 
current financial performance metrics to judge whether they are fully 
appropriate. If confirmed, I will work to understand and manage the 
current financial performance metrics the Air Force is employing and 
also will work with the Under Secretary of Defense (Comptroller) to 
ensure the financial performance metrics the Air Force uses in the 
future will support the financial operations success of both DOD and 
the Department of the Air Force.
    Question. The Business Tranformation Agency (BTA) was established 
in DOD to strengthen management of its business systems modernization 
effort.
    What is your understanding of the mission of this agency and how 
its mission affects the responsibilities of the Assistant Secretary of 
the Air Force (Financial Management)?
    Answer. It is my understanding that the mission of the BTA is to be 
responsible for executing enterprise level business transformation and 
that it therefore works with the functional leaders and components to 
accomplish its mission. Given the stated mission of the BTA and the 
tiered accountability approach to execution, it is my understanding 
that the Assistant Secretary of the Air Force (Financial Management) 
will be allowed the flexibility to direct the requirements for the Air 
Force financial management mission, while continuously coordinating and 
integrating with the BTA to ensure meeting enterprise level mission 
requirements as well.
    Question. What is your understanding of the role of the Assistant 
Secretary of the Air Force (Financial Management) in providing the Air 
Force's views to the Agency, or participating in the decisionmaking 
process of the agency, on issues of concern to the Air Force?
    Answer. It is my understanding that the implementation of BTA 
mission within DOD divides governance and accountability for business 
modernization initiatives between Military Services and the Secretary 
of Defense. The Assistant Secretary of the Air Force (Financial 
Management) continuously coordinates and integrates with the BTA to 
ensure the BTA is aware of the ongoing Air Force issues, as well as to 
understand the challenges and issues at the enterprise level.
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designated the Under Secretary of the Air Force as the 
Chief Management Officer of the Air Force. Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 required the 
establishment of a Business Transformation Office (BTO) within the Air 
Force to assist the Chief Management Officer in carrying out his 
duties.
    If confirmed, what would your role be in the Department's business 
modernization effort?
    Answer. If confirmed, I believe my role as the Assistant Secretary 
of the Air Force (Financial Management) would be to work closely with 
the Air Force BTO and the Air Force Chief Management Office to ensure 
Air Force financial management mission and requirements are coordinated 
and integrated with the enterprise business operations, plans, and 
modernization efforts of both the Air Force and DOD.
    Question. What is your understanding of the relative 
responsibilities of the Chief Management Officer, the Air Force BTO, 
and the Assistant Secretary of the Air Force (Financial Management) in 
Air Force business systems modernization and improvements in financial 
management?
    Answer. Public Law 110-417, section 908 required the Secretary of 
the Air Force to establish a BTO to develop and implement a business 
transformation plan with measurable performance goals and objectives to 
achieve an integrated management system for the business operations of 
the Air Force. If confirmed as the Assistant Secretary of the Air Force 
(Financial Management), I would work closely to coordinate and 
integrate the requirements of the financial management mission within 
this framework and to support the Air Force Chief Management Officer 
and BTO in the accomplishment of their business transformation 
responsibilities.
    Question. Do you believe the organizational structure of the 
Department of the Air Force is properly aligned to bring about business 
systems modernization and improvements in the financial management of 
the Air Force?
    Answer. At this point, I am not sufficiently familiar with how the 
specifics of the Air Force's organizational structure affect efforts at 
the business systems modernization and desired improvements in the 
financial management of the Air Force. As with any large, complex 
organization the Air Force has multiple stakeholders with sometimes 
competing equities in any business system or process modernization 
effort.
    Question. If not, how do you believe the Department should be 
restructured to more effectively address these issues?
    Answer. At this point, I do not have a sufficient understanding of 
how the Air Force organizational structure affects these modernization 
efforts to make recommendations. If confirmed, I would work to assess 
whether the current organizational structure of the Air Force is 
properly aligned to accomplish business systems modernization and 
improvements in Air Force financial management. If I identify 
shortfalls, I would intend to raise them with the Chief Management 
Officer and the BTO in order to develop a consensus on any necessary 
restructuring.
    Question. Section 2222 of title 10, U.S.C., requires DOD to develop 
a Business Enterprise Architecture and Transition Plan to ensure that 
the Department's business systems are capable of providing timely, 
accurate, and reliable information, including financial information, on 
which to base management decisions. The Department also prepares an 
annual FIAR plan aimed at correcting deficiencies in DOD's financial 
management and ability to receive an unqualified ``clean'' audit. 
Section 376 of the National Defense Authorization Act for Fiscal Year 
2006 required that the FIAR plan be systematically tied to the actions 
undertaken and planned pursuant to section 2222.
    If confirmed, what role would you expect to play in the formulation 
of the Air Force's contribution to the Business Enterprise Architecture 
and Transition Plan and the FIAR plan?
    Answer. If confirmed, I expect to work closely with the Air Force 
Chief Management Officer and BTO to continuously coordinate and 
integrate Air Force financial management requirements with the Business 
Enterprise Architecture and Transition Plan to ensure they are linked 
and consistently executed with the FIAR Plan.
    Question. What steps would you take, if confirmed, to ensure that 
the Air Force's contribution to the FIAR plan is systematically tied to 
actions undertaken and planned in accordance with section 2222?
    Answer. If confirmed, I would work closely with the Office of the 
Under Secretary of Defense (Comptroller) to ensure Air Force FIAR 
initiatives are closely coordinated and integrated with the FIAR Plan 
and Business Enterprise Architecture and Transition Plan to ensure we 
focus on the business and financial information needed to manage the 
department and the Air Force.
    Question. The Comptroller General has testified that DOD should fix 
its financial management systems before it tries to develop auditable 
financial statements. He explained that: ``Given the size, complexity, 
and deeply ingrained nature of the financial management problems facing 
DOD, heroic end-of-the-year efforts relied on by some agencies to 
develop auditable financial statement balances are not feasible at DOD. 
Instead, a sustained focus on the underlying problems impeding the 
development of reliable financial data throughout the Department will 
be necessary and is the best course of action.''
    Do you agree with this statement?
    Answer. I agree with the judgment of former Comptroller General 
David Walker that a focus on financial systems and underlying problems 
standing in the way of reliable financial data must take precedence. 
Additionally, I believe that the complex interdependency between 
department-wide, Service-level, and other financial systems means that 
a ``big bang'' type approach to auditability is unlikely to succeed.
    Question. What steps need to be taken in the Air Force to achieve 
the goal stated by the Comptroller General?
    Answer. In general, compliance with the FIAR and ETP programs (as 
they relate to the Air Force) are going to be significant contributors 
to achieve the goals the Comptroller General is proposing.
                      leasing major weapon systems
    Question. What is your opinion of leasing versus buying major 
capital equipment?
    Answer. In both the private sector and the Federal Government both 
options have value, but the best choice is strictly contingent upon the 
financial and operational variables involved, and each situation is 
unique. The Federal Government's lower cost of capital will often tip 
the balance against leasing major capital equipment in cases where the 
government anticipates an enduring need for the items in question. 
However, decisions have to be made on a case-by-case basis. If 
confirmed, I will ensure that the Air Force adheres to OMB guidance and 
pursues the option that most benefits the taxpayer.
    Question. Is leasing a viable and cost-effective option for 
procuring Department of the Air Force equipment, and if so, in what 
situations?
    Answer. If I am confirmed, I would intend to investigate the 
specifics of any major leasing proposal before consulting with the 
functional experts and this Committee to arrive at a financial 
management recommendation on the option which is the highest, best and 
most proper use of the taxpayer's dollars.
                          incremental funding
    Question. Both the executive and legislative branches have 
traditionally followed a policy of full funding for major capital 
purchases such as aircraft.
    What is your view of the incremental funding of major capital 
investments?
    Answer. As I understand it, the Office of Management and Budget has 
long had a policy that programs be fully funded upfront. I believe that 
the full funding principle is appropriate as a matter of policy. It 
protects the taxpayer and helps to ensure the government does not waste 
resources on projects that cannot be supported in future years. There 
may, however, be limited circumstances in which it is appropriate to 
waive that policy or find workarounds such as phasing of projects in 
order to best serve the interests of the Air Force and the taxpayer.
               supplemental funding and annual budgeting
    Question. Since September 11, 2001, DOD has paid for much of the 
cost of ongoing military operations through supplemental 
appropriations. The fiscal year 2010 budget includes a full-year 
request for overseas contingency operations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. As a congressional staffer, I was active in efforts to 
reduce DOD's reliance on supplemental appropriations for expenses that 
could reasonably be anticipated. My personal view is that the 
Department should include predictable costs in the base budget request 
to the maximum extent possible. At times, the dynamic nature of these 
operations will surely require short notice requests for funding, but 
this should be the exception, not the norm. Where supplementals are 
needed, their negative aspects can be minimized by subjecting them to a 
level of scrutiny similar to that applied to regular budgets, within 
the time constraints imposed by operational needs.
    Choices about how to request the funding for overseas contingency 
operations will be made by the President through OMB. Ultimately the 
decision about how to provide this funding will be made by Congress. If 
confirmed, I will work with the Air Force, Department leadership and 
Congress to support the presentation of the budget in which ever 
fashion is chosen.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of Title 10, U.S.C., is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by DOD?
    Answer. Yes. I recognize situations do occur where funds have been 
appropriated but not authorized in the Department, and it is my 
understanding it is the Department's practice to work with all the 
oversight committees to communicate and resolve these situations. If 
confirmed, I will work closely with the oversight committees to achieve 
a resolution of the situation, if it arises, and will respect the views 
and rights of the committees.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force (Financial Management)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee of Congress, or to consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator John McCain
               supplemental funding and annual budgeting
    1. Senator McCain. Dr. Morin, what are your views about the 
feasibility of elimination of wartime supplemental appropriations?
    Dr. Morin. My personal view is that the Department should include 
predictable contingency costs in the base budget request to the maximum 
extent possible. Doing so should help reduce the frequency and the size 
of any future supplemental appropriations requests. At times, the 
dynamic nature of overseas contingency operations could certainly 
require short-notice requests for funding, but this should be the 
exception, not the norm.
                                 ______
                                 
                Question Submitted by Senator John Thune
                   air force financial service center
    2. Senator Thune. Dr. Morin, the Air Force Financial Service Center 
opened in 2007 at Ellsworth Air Force Base. The Air Force is leading 
the way when it comes to financial transformation to serve our Nation's 
airmen. Not only is the Center important to South Dakota, but it also 
provides the Air Force with a vital service. The Center currently 
employs over 500 people and, in this fiscal year alone, the Financial 
Service Center has processed close to a half a million Air Force pay 
and travel documents. Are you familiar with the Air Force Financial 
Service Center and do you support the Air Force financial service 
transformation efforts that are being undertaken at Ellsworth Air Force 
Base?
    Dr. Morin. Yes, I am familiar with the Air Force Financial Services 
Center and I support the effort to modernize the provision of financial 
services in the Air Force. The success of the financial service 
transformation effort would increase efficiency and yield significant 
savings. If confirmed, I will ensure Financial Services within the Air 
Force continues to support our Nation's airmen.
                                 ______
                                 
    [The nomination reference of Dr. Jamie M. Morin follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 11, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jamie Michael Morin, of Michigan, to be an Assistant Secretary of 
the Air Force, vice John H. Gibson, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Jamie M. Morin, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. Jamie M. Morin
     Since 2003, Jamie Morin has been a member of the professional 
staff of the U.S. Senate Committee on the Budget. In this capacity, he 
has served as the committee's lead analyst for the defense, 
intelligence, and foreign affairs budgets, responsible for drafting the 
relevant sections of the congressional budget resolution and advising 
the Senate on enforcement of budget rules. Additionally, he advises 
Budget Committee Chairman Kent Conrad on the full range of national 
security issues.
    Dr. Morin has previously worked in the Office of the Secretary of 
Defense and as an economic development strategist with the firm J.E. 
Austin Associates, where he performed contract research for the US 
Agency for International Development. He has held in-residence 
fellowships at the University of Virginia's Miller Center for Public 
Affairs and at the Center for Strategic and Budgetary Assessments, 
where he conducted research for the Pentagon's Office of Net 
Assessment. He also served as a policy advisor on President-elect 
Obama's defense transition team.
    Dr. Morin received a Ph.D. in Political Science from Yale, an M.Sc. 
in public administration and public policy from the London School of 
Economics, and a B.S. in Foreign Service from Georgetown. His academic 
research focused on U.S. national security policy, particularly the 
role of Congress in defense budgeting and policy making.
    A native of Michigan, Dr. Morin currently lives with his wife and 
son in Washington, DC.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Jamie M. 
Morin in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jamie Michael Morin.

    2. Position to which nominated:
    Assistant Secretary of the Air Force for Financial Management and 
Comptroller.

    3. Date of nomination:
    May 11, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 23, 1975; Southfield, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Megan Anne Baker-Morin.

    7. Names and ages of children:
    William (Liam) Morin, 4.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Yale University, 1998-2003:
          Ph.D. in Political Science, 2003.
          M.Phil, in Political Science, 2001.
          M.A. in Political Science, 2001.

    London School of Economics, 1997-1998, M.Sc. in Public 
Administration and Public Policy, 1998.
    Georgetown University School of Foreign Service, 1993-1996, B.S.F.S 
in International Security and Diplomacy, 1996.
    University of Detroit Jesuit High School 1989-1993, High School 
Diploma, 1993.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Defense Analyst, U.S. Senate Committee on the Budget, 
Washington DC (July 2003 to present).
    National Fellow in Public Affairs, Miller Center for Public 
Affairs, University of Virginia, Charlottesville, VA (July 2002 to July 
2003).
    Various Teaching Fellowships in International Relations and 
American Politics, Yale University Department of Political Science, New 
Haven, CT (January 1999 to June 2002).
    Visiting Fellow, Center for Strategic and Budgetary Assessments, 
Washington DC (June 2001 to September 2001).
    Economist and Strategy Specialist, J.E. Austin Associates 
(international economic development consultancy), Arlington, VA (May 
2000 to September 2000; previously worked for this firm from October 
1995 to September 1997).
    Intern (GS-9), Office of the Secretary of Defense (Directorate of 
Requirements, Plans, and Counterproliferation Policy), Arlington VA 
(June 1999 to September 1999).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    As a visiting fellow at the Center for Strategic and Budgetary 
Assessments, I assisted with research and writing of a study for the 
Department of Defense's Office of Net Assessment on the British Royal 
Navy's response to technological change during the late 19th and early 
20th centuries.
    As a consultant with J.E. Austin Associates, I supported several 
USAID economic development projects, primarily related to private 
sector and agricultural development in African and Latin American 
countries.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of Yale, Georgetown, and University of Detroit Jesuit High 
School alumni associations.
    Member of National Military Family Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteer advisor on defense budget policy, Obama for America, 
2007-2008.
    Volunteer, Virginia Campaign for Change, November 2008.
    Volunteer, Jim Webb for Senate, November 2006.
    Volunteer, John Kerry for President, November 2004.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $250 - Barack Obama (General Election), October 22, 2008
    $200 - Barack Obama (Primary), July 9, 2008
    $200 - Barack Obama (Primary), January 8, 2008 (estimated).

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Dirksen Center - Congressional Research Award (2003)
    Miller Center (UVA) - National Fellow in Public Affairs (2002-2003)
    Yale University - Yale University Fellowship (1998-2002), 
Dissertation Fellowship (2002-2003)
    Smith-Richardson Foundation - Research Fellowship (2001, 2002)
    Nominated by students for the Yale College Teaching Prize (1999)
    DACOR Bacon House Foundation - Tutthill Fellowship (1997)
    Krogh Scholar, Georgetown University School of Foreign Service 
(1995-1996)
    Eagle Scout, Boy Scouts of America (1992)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Squaring the Pentagon: The Politics of Post-Cold War Defense 
Retrenchment, Ph.D. Dissertation, Yale University Department of 
Political Science, (2003).
    ``The Politics of Post-Cold WarDefense Retrenchment,'' Paper 
presented to the NewFaces in International Security Conference, 
Triangle Institute for Security Studies, (2003).
    ``Did Congress Shape America's Post-Cold War Defense? Measuring the 
Politics of Budgetary Retrenchment,'' Paper presented to the American 
Political Science Association's 2003 annual conference.
    ``Explaining the Shape of the Post-Cold War U.S. Military,'' Paper 
presented to the Miller Center Fellows Conference, (May 2003).
    ``Congressional Assertion in Defense Budgeting During 
Retrenchment,'' Presentation to the Miller Center Fellows Kick-off 
Conference (2002).
    ``Comment on Josef Joffe's `Who's Afraid of Mr. Big,' '' The 
National Interest (Fall 2001).
    ``European Economic and Monetary Union and Trans-Atlantic Security 
Relations,'' International Security Review (London, RUSI: 1999).
    ``EMU and U.S. Troops in Europe,'' Royal United Services Institute 
Newsbrief (London, RUSI: April 1998).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Jamie M. Morin.
    This 15th day of May, 2009.

    [The nomination of Dr. Jamie M. Morin was reported to the 
Senate by Chairman Levin on June 18, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 19, 2009.]
                              ----------                              

    [Prepared questions submitted to Daniel B. Ginsberg by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Department of Defense (DOD), working with Congress, 
should continually assess the law in light of improving capabilities, 
evolving threats, and changing organizational dynamics. There have been 
legislative initiatives from Congress in recent years to clarify the 
role of the National Guard in DOD's organization but I am currently 
unaware of any reason to fundamentally amend Goldwater-Nichols. If 
confirmed, I will have an opportunity to assess whether the challenges 
posed by today's security environment require broad amendments to the 
legislation with a view to continuing the objectives of defense reform.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. At this time, I am unaware of any reason to fundamentally 
amend the Goldwater-Nichols Act. If I am confirmed and I identify areas 
that I believe merit changes, I will propose those changes through the 
established process.
                                 duties
    Question. Section 8016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Air Force for Manpower and Reserve Affairs 
shall have ``as his principal duty the overall supervision of manpower 
and Reserve component affairs of the Department of the Air Force.''
    If confirmed, what duties do you expect that the Secretary of the 
Air Force will prescribe for you?
    Answer. The principle duties of the Assistant Secretary of the Air 
Force are to support the tasks assigned by the Secretary of the Air 
Force. These duties include providing guidance, direction, and 
oversight for Air Force military and civilian manpower/personnel 
programs; medical readiness and health care; plus Reserve component 
affairs. The Assistant Secretary is also responsible for oversight of 
the operation of the Air Force Review Board Agency and its component 
board.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs?
    Answer. If confirmed, I look forward to immersing myself into the 
Air Force's mission, organizations and its people, to maximize the 
duties expected of me and to support the Total Force. I will work hard 
to understand the Air Force's challenges and the resources necessary to 
sustain yet continue to transform the Total Force. To that end I will 
seek advice and counsel from the many and diverse stakeholders 
dedicated to the success of the Air Force.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of the Air Force.
    Answer. If confirmed, I will meet and communicate with the 
Secretary of the Air Force on a regular and as required basis. I will 
provide him with my honest assessment and advice and support him in the 
implementation of his decisions and policy.
    Question. The Under Secretary of the Air Force.
    Answer. If confirmed, I will work closely with the Under Secretary 
and communicate on a regular basis.
    Question. The other Assistant Secretaries of the Air Force
    Answer. If confirmed, I will establish and maintain close and 
professional relationships with each of the Assistant Secretaries and 
seek to foster an environment of cooperative teamwork, working together 
on the day-to-day management and long-range planning needs of the Air 
Force.
    Question. The General Counsel of the Air Force.
    Answer. The Air Force General Counsel has a significant role to 
play in virtually all policy decisions in the Air Force. If confirmed, 
I expect to have a strong relationship with The General Counsel to 
provide consistent and sound legal advice.
    Question. The Inspector General of the Air Force.
    Answer. If confirmed, I will establish and maintain a close and 
professional relationship with the Inspector General as this office has 
an important role in inquiring and reporting on matters that are the 
cornerstone of our readiness (such as efficiency, training, discipline, 
and morale).
    Question. The Chief of Legislative Liaison of the Department of the 
Air Force.
    Answer. If confirmed, I will establish and maintain a close and 
professional relationship with the Director of Legislative Liaison who 
plays an integral role in ensuring that the Air Force maintains 
positive relations with Congress and coordinates the Air Force's 
legislative strategy.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I plan to foster a harmonious working 
relationship with all my civilian contemporaries in the Office of the 
Secretary of Defense (OSD). I will communicate openly and directly with 
the Under Secretary of Defense for Personnel and Readiness in 
articulating the views of the Department of the Air Force.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. If confirmed, I would expect to establish the same 
harmonious relationship that I intend to establish with the Under 
Secretary of Defense for Personnel and Readiness.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force, except as otherwise 
prescribed by law, performs his duties under the authority, direction 
and control of the Secretary of the Air Force and is directly 
responsible to the Secretary. If confirmed, I would, as the senior 
civilian charged with policy decision for manpower and Reserve affairs 
work hand in hand with the Chief of Staff to carry out the duties 
prescribed by the Secretary of the Air Force.
    Question. The Deputy Chief of Staff of the Air Force for Manpower 
and Reserve Affairs.
    Answer. Much of the day-to-day operations involving Air Force 
personnel are actually handled by the staff members of the Deputy Chief 
of Staff for Manpower, Personnel, and Services. As such, this office 
implements the policies approved by the Office of the Secretary of the 
Air Force. I understand that the Secretary of the Air Force has 
clarified that relationship through recent revisions to mission 
directives.
    Question. The Surgeon General of the Air Force.
    Answer. If confirmed, it will be my priority to ensure that our 
airmen continue to receive quality medical support. I will work closely 
with the Surgeon General of the Air Force to ensure the Air Force 
medical system supports a medically ready force.
    Question. The Judge Advocate General of the Air Force.
    Answer. I expect to establish a relationship with the Judge 
Advocate General of the Air Force as the Air Force's senior military 
legal counsel and senior leader of the Air Force Judge Advocate Corps.
    Question. The Chief, National Guard Bureau.
    Answer. I have a history of working successfully with the National 
Guard Bureau on a range of issues. If confirmed, I expect to maintain a 
close working relationship with the Chief on matters relating to the 
National Guard and the Air National Guard. It will be my priority to 
ensure that our National Guard meets requirements whether in Federal or 
State status.
    Question. The Director of the Air National Guard.
    Answer. The Air National Guard is one of the two Air Reserve 
components with which, if confirmed, I expect to be in close, constant 
communication. I understand Air National Guard issues and challenges 
well and know that the Reserve components are key to Air Force mission 
success.
    Question. The Chief of Air Force Reserve.
    Answer. If confirmed, I expect that my relationship to the Chief of 
Air Force Reserve to be virtually identical to that of the Director of 
the Air National Guard. However, because the Air Force Reserve is 
limited to the Federal mission, I would expect some differences in 
challenges and issues.
    Question. The Reserve Forces Policy Board (RFPB).
    Answer. I understand that the RFPB is the principal policy adviser 
to the Secretary of Defense on matters relating to the Reserve 
components. If confirmed, I will be a member of the RFPB. I will use 
that role to ensure that the Air Force communicates its Reserve 
component issues and priorities with the other Service RFPB members and 
the Secretary of Defense.
    Question. The Air Force Reserve Forces Policy Committee.
    Answer. The Air Force Reserve Forces Policy Committee advises the 
Secretary of the Air Force on major policy matters directly affecting 
the Reserve components and the mobilization preparedness of the Air 
Force. If confirmed, I will fully support the Air Force Reserve Forces 
Policy Committee in its statutory role and provide such other support 
as directed by the Secretary of the Air Force.
    Question. Airmen and their families.
    Answer. Ultimately, the individual airmen and their families will 
determine whether the Air Force is successful in any endeavor. If 
confirmed, I will devote the necessary energies to improving the 
policies, processes, and programs under my purview that will ensure our 
airmen mission success and the quality of life they deserve.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. The United States Air Force and our Airmen have remained a 
lifelong concern, personally, intellectually, and professionally. I 
have spent more than a decade working directly on military personnel, 
readiness, and Reserve issues in the United States Senate, which has 
constitutionally derived oversight responsibilities over DOD. With the 
Senate Armed Services Committee during the chairmanship of Sam Nunn of 
Georgia, I saw how Congress made providing for the men and women in 
uniform a paramount concern to the basic functioning and strength of 
the armed services. As an adviser on defense, veterans, and national 
security to Senator Patrick Leahy of Vermont, I directly assisted the 
Senator is his role as a senior member of the Defense Appropriations 
Subcommittee and as cochair of the Senate's National Guard Caucus, 
which has worked successfully to pass far-reaching legislation to 
improve the benefits, equipment, and organization of the reserves, 
including the Air National Guard and the Air Reserves. I provided 
direct support and helped coordinate--among others--efforts to provide 
affordable health insurance to members of the Select Reserve, provide 
more uniform housing allowances, and improve the Department's ability 
to carry out domestic operations in support of civilian authorities. I 
have recently traveled with Senator Leahy to Kuwait, Iraq, and 
Afghanistan saw first-hand some of the contributions and challenges 
facing our deployed U.S. airmen.
    Second, military personnel policy, the relationship between the 
military and its civilian leadership, and the historical development of 
the Air Force has been a special focus of my education, whether in my 
undergraduate studies at the University of Michigan and the London 
School of Economics or in my graduate work at the Johns Hopkins Nitze 
School of Advanced International Studies and the University of Chicago. 
Finally, the United States Air Force has been a lifelong interest to 
me. Before my eyesight deteriorated and my interests and goals evolved, 
I dreamed of flying the F-15 Eagle, the Air Force's longtime, main air 
superiority fighter. In my childhood and teen years, I read about the 
Service intensely, visited many U.S. Air Force bases across the globe, 
and took private pilot lessons to begin to build basic flying skills.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs?
    Answer. I believe the Air Force's ability to prevail in current 
operations and to sustain global commitments is critical. The Air Force 
must balance the employment of the Regular forces with those of the 
Guard and Reserve. If confirmed, I will lead and partner on efforts to 
formulate policies that will help facilitate our airmen's ability to 
provide a continuum of service.
    Family support programs are more important than ever in light of 
continued deployments and the related stress, both on the members of 
the armed services and their families. I understand the Air Force is 
establishing a first class Wounded Warrior program to provide high 
standards of care in a compassionate and supportive way.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would be honored to do all that I can to 
work with the rest of the Department and the Department of Veterans 
Affairs (VA) to promote a high standard of care for our Wounded 
Warriors and to ensure our families receive the support they require.
                        active-duty end strength
    Question. The Air Force has requested an active-duty end strength 
of 331,700 for fiscal year 2010--an increase of about 15,000 from last 
year's authorization. This follows several years of declining Air Force 
end strength.
    What is your view of the required Air Force active-duty end 
strength?
    Answer. The 331,700 active-duty end strength should allow the Air 
Force to fund its most pressing requirements, such as robusting its 
nuclear forces as well as supporting new and emerging missions. If 
confirmed, I look forward to reviewing and assessing the Air Force end 
strength requirement.
                       officer management issues
    Question. As the Assistant Secretary of the Air Force for Manpower 
and Reserve Affairs you would have significant responsibilities with 
regard to officer management policies, the promotion system, and 
recommending officers for nomination to positions of authority and 
responsibility.
    If confirmed, what changes, if any, would you make to the officer 
management system?
    Answer. It's well known that the Air Force has an exceptionally 
talented and highly trained officer corps supporting not only the 
mission of the Air Force but also the joint warfighting mission as 
well. If confirmed, I look forward to reviewing officer management 
processes and policies to ensure the optimal development of the officer 
corps.
    Question. Do you believe the current Air Force procedures and 
practices for reviewing the records of officers pending nomination by 
the President are sufficient to ensure the Secretary of the Air Force, 
the Secretary of Defense, and the President can make informed 
decisions?
    Answer. Based on my conversations with the Service, I believe that 
Air Force officer promotion procedures are sufficient and ensure the 
Air Force selects only the best qualified officers for promotion. 
Should I be confirmed, I will ensure the promotion selection procedures 
continue to be sufficiently rigorous to ensure officers meet the 
statutory requirement of exemplary conduct both before and after the 
convening of a promotion selection board.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. It is my understanding that the Air Force's promotion 
system is fair and reasonable for all eligible officers. Officers are 
considered based on a ``whole-person'' concept that gives ultimate 
consideration to their demonstrated potential to serve in the next 
higher grade. If confirmed, I will continuously monitor board processes 
to ensure fairness and legal compliance.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in OSD prior to nomination.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general and flag officer nominations?
    Answer. The Secretary of the Air Force is directly involved in the 
General Officer nomination process working with the Chief of Staff. If 
confirmed, I look forward to working with senior Air Force leadership 
to execute the duties of the office of the Assistant Secretary for 
Manpower and Reserve Affairs
    Question. What is your assessment of the ability of the Services to 
timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. While I have not made a complete assessment, it is my 
understanding that under current Department of the Air Force practice, 
the adverse information presented to promotion selection boards is 
culled from numerous Air Force organizations that maintain relevant 
data, and generally has been found to be accurate and timely. 
Certainly, if confirmed, this will be a key area to explore.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
and flag officer rank?
    Answer. As previously stated, the Secretary of the Air Force works 
directly with the Chief of Staff on this matter, however, if requested 
by the Secretary, I stand ready to advise, if confirmed.
                 technical training of general officers
    Question. In your view, do a sufficient number of Air Force general 
officers have advanced training and degrees in scientific and technical 
disciplines?
    Answer. At this time I cannot answer definitively, however, if 
confirmed, I will engage and advise where necessary.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the Air Force can execute complex 
acquisition programs, adapt to a rapidly changing technological threat 
environment, and make informed investment decisions on DOD and Air 
Force resources?
    Answer. I have been informed that the Air Force carefully manages 
its officer corps to the appropriate level of adaptability and 
technical expertise relevant to each career field. I also understand 
that the Air Force is presently studying its Acquisition Corps to 
insure career paths for officers provide them with the technical skills 
and experiences to take on the responsibilities of our complex 
acquisition programs. If confirmed, I look forward to the results.
    Question. What actions would you take, if confirmed, to ensure that 
Air Force officers can capably perform these missions?
    Answer. As I mentioned, the Air Force is in the process of studying 
its Acquisition Corps to ensure that the Air Force better develop our 
officers to meet our Acquisition requirements at the general officer 
level. If confirmed, I look forward to engaging with the Assistant 
Secretary for Acquisition to rectify any deficiencies.
               medical personnel recruiting and retention
    Question. The Air Force is facing significant shortages in 
critically needed medical personnel in both the Active and Reserve 
components. The committee is concerned that despite authorizing large 
bonuses for critically short medical specialties, serious challenges 
remain in recruitment and retention of medical, dental, nurse, and 
behavioral health personnel.
    If confirmed, will you undertake a comprehensive review of the 
medical support requirements for the Air Force and the sufficiency of 
the plans to meet recruiting and retention goals in these specialties?
    Answer. I appreciate the committee's concerns regarding this issue, 
and if confirmed, I pledge to consider this matter with the seriousness 
it requires. Medical support is critical to the success of our All-
Volunteer Force, and I intend to pay special attention to the Air 
Force's medical personnel requirements. Recruiting and retention of 
healthcare professionals is challenging in all areas of the country at 
this time, and the Air Force is experiencing shortages in several 
medical specialties and disciplines. However, even during these 
challenging times, I am pleased to note that Air Force continues to 
attract and produce world-class physicians, dentists, nurses, and 
medics.
    Question. What legislative and policy initiatives, including 
increased involvement of Air Force medical personnel in medical 
recruiting and bonuses and special pays, do you think may be necessary 
to ensure that the Air Force can continue to meet medical support 
requirements?
    Answer. If confirmed, I plan to review the Air Force's programs for 
recruiting and retaining military and civilian medical personnel. I 
will also work closely with the Air Force Surgeon General and the 
Deputy Chief of Staff for Manpower, Personnel, and Services to evaluate 
requirements and support ongoing programs and develop initiatives to 
enhance the Air Force's ability to recruit and retain health care 
providers and support personnel with the requisite critical skills. 
Should legislative or policy changes be required, I will work with the 
Secretary of the Air Force, other Air Force leaders, the leadership of 
DOD, and Congress to bring them to fruition.
                            lessons learned
    Question. What do you believe are the major Air Force personnel 
lessons learned from Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF) which you would seek to address if confirmed as 
Assistant Secretary of the Air Force for Manpower and Reserve Affairs?
    Answer. From what I have observed, two major themes stand out from 
lessons derived from OEF and OIF:
    In interviews, senior leaders expressed the view they could not 
distinguish between Active, Guard, and Reserve Forces. We need to 
maintain a ``total force'' by sustaining equal training and inspection 
standards, and recognizing the contribution of the Reserve component by 
improving health, education, pay and retirement benefits for our airmen 
when they return home.
    Airmen supporting OEF and OIF from continental United States 
locations are providing critical space and cyberspace capabilities to 
overseas forces. These airmen are seeing substantial increases in 
mission requirements with no proportional increase in manning, which is 
putting great strain on the force. The Air Force must recruit, train, 
support, and retain these highly skilled individuals to fulfill these 
vital missions.
    If confirmed, I will continuously monitor and seek out other 
lessons learned and apply them to the personnel challenges and 
complexities of our contingency operations.
              tricare fee increases for military retirees
    Question. Secretary Gates recently told officers at the Air War 
College that ``health care is eating the (Defense) Department alive.''
    How do you interpret this statement and do you agree with the 
Secretary's assessment?
    Answer. As I understand it, healthcare costs in DOD and the 
civilian sector have increased disproportionately due to many factors. 
I believe that over the past 10 years, the Air Force worked diligently 
to streamline medical infrastructure and capitalize on advancements in 
the field of medicine. This resulted in rightsizing many of our 
facilities without compromising care provided to our airmen and their 
families. The Air Force currently leverages strategic partnerships with 
civilian trauma centers, university medical centers, Veterans Affairs, 
and other DOD facilities to provide quality care and the broadest range 
of clinical opportunities for our entire medical team. If confirmed, I 
will optimize the use of our assets and those of our partners to ensure 
the greatest return on our investments.
    Question. What is your view of the need for increased beneficiary 
payments in reducing overall health care costs to the Department?
    Answer. I am advised that costs have grown due to many factors 
including increased utilization by a mobilized Reserve component force, 
expansion of benefits to support basic healthcare needs of severely 
wounded and their families, increased retiree healthcare utilization, 
healthcare inflation, and the same TRICARE premiums for the past 10 
years. I believe that a sound medical benefit program directly impacts 
the retention of airmen and their families. If confirmed, I will 
support a DOD review of the current beneficiary payment structure to 
ensure that future benefit costs are sustainable.
    Question. What other reforms in infrastructure, benefits, or 
benefit management, if any, do you think should be examined in order to 
control the costs of military health care?
    Answer. Military health care is critical to our force and if 
confirmed, I will study this issue further and work with the other 
Services and DOD to determine the best structure for the future.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel, and related 
entitlement spending continues to soar and is becoming an ever 
increasing portion of the DOD budget.
    If confirmed, what actions will you take to control the rise in 
personnel costs and entitlement spending?
    Answer. If confirmed, I will work closely with our finance 
community to strike a balance between appropriate personnel costs and 
military pay or benefits.
    Question. If confirmed, what actions will you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. As is the case with regard to change in any large 
organization, military personnel changes take time to execute and 
implement throughout the force. In order to avoid unnecessary changes, 
if confirmed, I will work closely within the Air Force and with DOD to 
accurately project requirements, and will then monitor execution, 
strength, and incentives, to ensure the Air Force remains in balance.
                            family readiness
    Question. If confirmed, how would you address family readiness 
needs in light of global rebasing, base realignment and closure, and 
continuing deployments for both Active and Reserve component Air Force 
personnel?
    Answer. To use a quote from Air Force Chief of Staff General 
Schwartz, ``We are committed to ensuring that we not only address the 
needs of the military member, but recognize the fact that families make 
sacrifices, too. It's this larger acknowledgement of a sense of 
community, a sense of family--that the United States Air Force isn't 
just machines, it's people, it's families.''
    In that spirit, if confirmed, I will continue to identify and 
address the needs of the Total Force and the Total Family with 
deliberate attention directed toward the ongoing improvement in the 
quality of their environment.
    Question. If confirmed, how would you ensure support for Reserve 
component families, particularly those who do not reside near an 
active-duty military installation, related to mobilization, deployment, 
and family readiness?
    Answer. Family readiness is a very important issue to me. 
Geographically separated families are entitled to all of the programs 
and services necessary to enhance and maintain their family readiness. 
Standardized programs across the Air Force benefit both Active and 
Reserve components. The Yellow Ribbon Reintegration program can also 
play an important role in helping relieve some of the stresses that 
grow out of military service and frequent deployments. That being said, 
if confirmed, I will address and bridge any gaps that may exist for the 
Total Force and will continue to focus on providing child care and 
youth program options for geographically separated airmen and their 
families.
    Question. In your view, what progress has been made, and what 
actions need to be taken in the Air Force to provide increased 
employment opportunities for military spouses?
    Answer. I understand that the Air Force has made continuing 
progress in addressing the needs of military spouses. If confirmed, I 
will continue to pursue the initiatives that have been established and 
develop new initiatives as needed, to benefit military families.
    Question. If confirmed, what additional steps would you take to 
ensure that family readiness needs, including child care, are addressed 
and adequately resourced?
    Answer. If confirmed, I would continue to support childcare space 
growth and recapitalization. I would provide support for expanded 
childcare aid subsidy programs and work to increase the availability of 
childcare for the Air National Guard and Air Force Reserve. I would 
also review the ability to expand childcare options for families with 
children who have special needs (respite care).
                            quality of life
    Question. In May 2004, DOD published its first Quadrennial Quality 
of Life Review, which articulated a compact with military families on 
the importance of key quality of life factors, such as family support, 
child care, education, health care, and morale, welfare, and recreation 
services.
    How do you perceive the relationship between quality of life 
improvements and your own top priorities for military recruitment and 
retention?
    Answer. I understand that the Air Force prides itself on its 
commitment to quality of life, a strong point in recruiting and 
retention efforts. If confirmed, I will continue to make quality of 
life a priority in the Air Force, just as I have worked in the past to 
promote quality of life in the Reserve components.
    Question. If confirmed, what further enhancements to military 
quality of life would you make a priority, and how do you envision 
working with the other Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. If confirmed, I will continue to work with family advocacy 
groups and all of the Air Force quality of life providers in their 
transformation efforts aimed at improving airmen and their families' 
quality of service. Additionally, joint basing has forced all of the 
armed services to work together to find ways to improve the delivery of 
quality of life to our troops and their families. Fortunately, there is 
support both from Congress and the President, who are committed to 
taking care of military families.
                     support for the single airman
    Question. While the percentage of married servicemembers has 
steadily increased, a substantial portion, especially young 
servicemembers, are single.
    What are the unique support needs of single airmen, especially 
those returning from combat?
    Answer. It is my understanding that the needs of single airmen 
differ from those of the married airmen. Recognizing those differences 
led to the development of programs and services that targeted the 
single airman and their parents, siblings and significant others and 
their ability to stay connected.
    Question. If confirmed, what would you do to address these needs?
    Answer. It is my understanding that support programs for single 
airmen are being reviewed and improved, with determinations as to what 
will be kept, altered and appropriately discontinued to better meet the 
needs of single airmen. If confirmed, I will review these programs 
designed to improve the quality of life for all airmen--Active and 
Reserve component, single and married, with a view toward ensuring that 
these programs are effective in meeting the specific needs of each 
group.
                   national security personnel system
    Question. Section 1106 of the National Defense Authorization Act 
for Fiscal Year 2008 restored the collective bargaining rights of 
civilian employees included in the National Security Personnel System 
(NSPS) established by DOD pursuant to section 9902 of title 5, U.S.C. 
Under section 1106, the Department retains the authority to establish a 
new performance management system (including pay for performance) and 
streamlined practices for hiring and promotion of civilian employees. 
Senior DOD officials have stated that they do not intend to expand NSPS 
to include employees in bargaining units that are represented by 
employee unions.
    What is your view of the NSPS, as currently constituted?
    Answer. I understand that the key features of NSPS (i.e. flexible 
civilian compensation, staffing, classification, and performance 
management systems) were designed to provide effective management of a 
mission-oriented and results-driven civilian workforce that is vital to 
the success of DOD missions. I understand that DOD and the Office of 
Personnel Management (OPM) are conducting a comprehensive evaluation of 
the NSPS system. If confirmed, I look forward to seeing the results of 
DOD and OPM's comprehensive evaluation of NSPS in order to work toward 
addressing any identified concerns.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. As a general principle, I support pay-for-performance; an 
employee's compensation should be based on contribution to mission. If 
confirmed, I look forward to seeing the results of DOD and OPM's 
comprehensive evaluation of NSPS in order to work toward addressing any 
identified concerns.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. I am advised that the Department is challenged in meeting 
increased civilian labor requirements in critical occupations and 
developing human capital strategies to respond to these challenges. It 
is my understanding that there are situations where specialized hiring 
authorities are required in order to provide sufficient qualified 
applicants to meet mission needs. If confirmed, I will review creative 
and active use of available authorities and will explore the need for 
and use of direct and expedited hiring authorities to assist in 
achieving the Department's human capital objectives.
    Question. In your view, is it viable in the long run for the DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. It is my understanding that DOD has a number of other 
personnel systems, such as Defense Civilian Intelligence Personnel 
System. If confirmed, I will work with DOD and OPM to assess the 
appropriate number and types of personnel systems for effective and 
efficient personnel management.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation? What changes, if any, would you recommend to 
the NSPS regulations?
    Answer. It is my understanding that DOD, in conjunction with OPM, 
is conducting a comprehensive evaluation of NSPS, as currently 
implemented. If confirmed, I would seek to ensure that the Air Force 
participates fully in this evaluation. Depending on the outcome of this 
evaluation, legislation and/or policy changes may be appropriate to 
ensure that NSPS is on track to achieve its full potential.
      balance between civilian employees and contractor employees
    Question. In recent years, DOD and the Air Force have become 
increasingly reliant on services provided by contractors. Over the past 
8 years, DOD's civilian workforce has remained essentially unchanged in 
size. Over the same period, the DOD's spending on contract services has 
more than doubled, with the estimated number of contractor employees 
working for the Department increasing from an estimated 730,000 in 
fiscal year 2000 to an estimated 1,550,000 in fiscal year 2007. As a 
result of the explosive growth in service contracts, contractors now 
play an integral role in the performance of functions that were once 
performed exclusively by government employees, including the management 
and oversight of weapons programs, the development of policies, the 
development of public relations strategies, and even the collection and 
analysis of intelligence. In many cases, contractor employees work in 
the same offices, serve on the same projects and task forces, and 
perform many of the same functions as Federal employees.
    Question. Do you believe that the current balance between civilian 
employees and contractor employees is in the best interests of the Air 
Force? In your view, has the Air Force become too reliant on 
contractors to perform its basic functions?
    Answer. I agree with President Obama's government contracting 
memorandum of March 4, 2009, directing the Federal Government to ensure 
that functions that are inherently governmental in nature are not 
outsourced. If confirmed, I would work with the Secretary of the Air 
Force, and leaders across the Air Force to assess this matter so as to 
ensure compliance with the law and with the President's policy.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interests of the Air Force?
    Answer. As I understand it, the Federal Acquisition Regulation 
restricts the use of personal services contracts. If confirmed, I would 
work with the Secretary of the Air Force, and leaders across the Air 
Force to ensure compliance with applicable law and policy.
    Question. Do you believe that the Air Force should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. I support fully the principles and policies set forth in 
President Obama's memorandum of March 4, 2009. That memorandum directs 
the Office of Management and Budget, in coordination with the Secretary 
of Defense, among others, to ``develop and issue by July 1, 2009, 
Government-wide guidance to assist branch agencies in reviewing, and 
creating processes for ongoing review of, existing contracts in order 
to identify contracts that are wasteful, inefficient, or not otherwise 
likely to meet the agency's needs and to formulate appropriate 
corrective action in a timely manner.'' I believe that any such review 
must include a review of inherently governmental functions and other 
critical government functions and how they are performed. If confirmed, 
I will support any such review and corrective action, particularly as 
it relates to matters under the purview of the Office of the Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs.
    Question. If confirmed, will you work with other appropriate 
officials in the Air Force to address these issues?
    Answer. If confirmed, I will work collaboratively with other Air 
Force officials to ensure these matters are addressed in the best 
interest of the Air Force and DOD.
    Question. One reason for the explosive growth in DOD's contractor 
workforce has been the continuing limitation placed on the number of 
civilian employees of DOD. Rather than saving money as intended, this 
limitation has shifted all growth to contractor employees.
    Would you agree that the balance between civilian employees and 
contractor employees in performing Air Force functions should be 
determined by the best interests of the Air Force and not by artificial 
constraints on the number of civilian employees?
    Answer. Yes, I agree.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Air Force's civilian workforce, 
so that the Air Force can hire the number of employees most appropriate 
to accomplish its mission?
    Answer. If confirmed, I would support all efforts to ensure 
compliance with the law, and if modifications are determined to be 
necessary, to work with Congress as necessary.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving 
servicemembers in Iraq, Kuwait, and Afghanistan have been reported over 
the last several years. Many victims and their advocates contend that 
they were victimized twice: first by attackers in their own ranks and 
then by unresponsive or inadequate military treatment. They asserted 
that the Military Services have failed to respond appropriately by 
providing basic services, including medical attention and criminal 
investigation of their charges.
    What is your understanding of the resources and programs the Air 
Force has in place in deployed locations to offer victims of sexual 
assaults the medical, psychological, and legal help that they need?
    Answer. I am aware of recent congressional testimony on this matter 
and understand that the Air Force goes to great lengths to ensure 
appropriate levels of support are available to our deployed Airmen. I 
understand that the Air Force deploys a fully trained Sexual Assault 
Response Coordinator (SARC) to each of our Air Expeditionary Wings and 
is posturing to support an additional location. While deployed, it is 
vital to have a robust sexual assault training and awareness program to 
ensure all personnel, regardless of military branch, know that the SARC 
is there to support them. I understand the Air Force's SARCs must 
complete a mandatory training before they can assume the role and 
responsibility. Combined with strong base leadership support, SARCs 
provide a 24/7 response capability. Responsibilities include conducting 
weekly in-processing briefings to newly arrived personnel and monthly 
case management team meetings to review ongoing cases. Air Force SARCs 
also address process improvements with representatives from Medical, 
Office of Special Investigations, Security Forces and Judge Advocate 
and Chaplain communities and provide outreach and prevention programs 
across their installation and supported Geographically Separated Units. 
If confirmed, I will continue to study this matter in greater depth 
with a view to ensuring that the Air Force continues to take 
appropriate steps to aid victims of sexual assault, both in garrison 
and in deployed locations.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults at home stations as well as deployed 
locations?
    Answer. In my opinion, the Air Force has taken several extremely 
important steps in its campaign to prevent sexual assaults both at home 
station and deployed locations. For instance, I have learned that from 
the beginning of the Air Force's institutional program in 2005, 
prevention approaches have been included with our awareness and 
response efforts. Most prominent has been the inclusion of bystander 
awareness and how each Airman has a role in preventing sexual assaults. 
Part of the Air Force's continuous improvement to our training has been 
a long-term project to develop specific bystander intervention training 
modules for men, women, and leaders. If confirmed, I will continue 
these vital initiatives and assess whether additional steps should be 
taken.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and respond to 
allegations of sexual assault?
    Answer. I have been informed that from the time when the Sexual 
Assault Prevention and Response (SAPR) Program was created just 3 years 
ago, the Air Force believes they have implemented a sound response 
capability at the installation level. Since 2006, all airmen entering 
Basic training and all precommissioning programs are educated about 
sexual assault, their reporting options, and how to seek assistance if 
they have been a victim of this crime. Education and training courses 
have been designed and are ready to implement across the Air Force this 
year to reach airmen throughout their time in the Air Force regardless 
of the length of their service. If confirmed, I will assess whether 
additional steps should be taken to support victims and hold offenders 
accountable.
    Question. Do you consider the Air Force's current sexual assault 
policies and procedures, particularly those on confidential, or 
restricted, reporting, to be effective?
    Answer. Since the Air Force's program formally launched in 2005, I 
understand great progress has been made in policies and procedures, 
however, if confirmed, I will work with knowledgeable professionals to 
assess and ensure the continuation of such progress.
    Question. What problems, if any, are you aware of in the manner in 
which the restricted reporting procedures have been put into effect?
    Answer. While not extensively familiar with restrictive reporting 
problems, we must always be aware of what victims are experiencing and 
recognize that many will not report for a multitude of reasons. Many of 
those barriers are similar to what civilian victims endure who have no 
association with the military, as well as, some very unique challenges 
to those who are in the military. If I am confirmed, I will constantly 
engage to determine whether improvements are needed in the area of 
restrictive reporting.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of Departmental efforts 
on sexual assault prevention and response?
    Answer. If confirmed, I will have an active role in the oversight 
and implementation of the Air Force's SAPR Program. I'm committed to 
creating a culture of zero-tolerance regarding the crime of sexual 
assault. I recognize the importance of sustained partnerships with DOD, 
and with national subject matter experts and advocacy groups to get it 
right.
                    united states air force academy
    Question. What is your assessment of the policies and procedures, 
including the frequency and use of surveys, at the United States Air 
Force Academy to prevent and respond appropriately to sexual assaults 
and sexual harassment and to ensure essential oversight?
    Answer. I understand the Academy has institutionalized a 
comprehensive program of both prevention and response to sexual assault 
and sexual harassment, and that surveys are a necessary and important 
part of that program. I am not familiar exactly with the extent to 
which surveys are currently used at the Academy. If confirmed I will 
ensure vigilant oversight of this critical issue and, if necessary, 
adjust policies and resources.
    Question. What is your assessment of the policies and procedures at 
the United States Air Force Academy to ensure religious tolerance and 
respect?
    Answer. It is critical that one consistent set of guidelines that 
are fair to everyone be applied equally across the board because the 
Air Force Academy cannot be an institution unto itself but must be part 
of the larger Air Force. If confirmed, I expect the Air Force Academy 
to remain in full compliance with OSD and Air Force-wide policy.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Air Force regarding religious 
practices in the military?
    Answer. It is my understanding that the Air Force has supported 
policies of religious tolerance and mutual respect. If confirmed, I 
would continue the Air Force's commitment to upholding the 
Constitutional tenets of the ``free exercise'' and ``establishment'' 
clauses, and review policies as necessary to assure continued 
compliance with the First Amendment.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular articles 
of religious significance?
    Answer. Like other religious practices, I would expect that the 
principles of ``free exercise'' would be balanced against the interests 
of the Air Force in standardized uniform wear. If confirmed, I will 
review these policies, as required.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I have not had an opportunity to review in depth the Air 
Force's policies regarding free exercise of religion and other beliefs. 
If confirmed, I will study this issue to determine if changes in policy 
are necessary.
    Question. In your opinion, do existing Air Force policies and 
practices regarding public prayers offered by military chaplains in a 
variety of formal and informal settings strike the proper balance 
between a chaplain's ability to pray in accordance with his or her 
religious beliefs and the rights of other servicemembers with different 
beliefs, including no religious beliefs?
    Answer. I understand that chaplains are not compelled to offer 
prayers that are inconsistent with their faith, but are expected to 
remain sensitive to the pluralistic Air Force and society they serve. 
In my opinion, such an approach strikes an appropriate balance given 
the diversity of religious views in the Air Force. If confirmed, I am 
willing to study this issue further to determine if changes in policy 
are necessary.
                           suicide prevention
    Question. The committee is concerned about the increasing rate of 
suicides in all of the Services.
    In your view, what is the cause of this increase in suicides in the 
Air Force?
    Answer. I understand the Air Force has experienced an upward trend 
in suicides in 2008 compared to 2007. I believe that deployments and 
heavy operational tempo place a heavy strain on airmen and their 
families. If confirmed, I will aggressively work with other Air Force 
leaders, DOD and outside agencies to give this our full attention.
    Question. What is your assessment of the Air Force's response to 
this increase in suicides?
    Answer. It is my understanding that Air Force leadership has 
aggressively responded to the increase in suicides. The Air Force 
continues to look at many successful initiatives to build on an 
established Suicide Prevention Program. In my view, the Air Force has a 
benchmark program that we can continue to improve on to provide a 
comprehensive and collaborative approach to enhancing the psychological 
health and resiliency of airmen. If confirmed, I will fully support and 
build upon the Air Force Suicide Prevention Program.
    Question. What is your assessment of the adequacy of Air Force 
programs in place to reduce or eliminate the incidence of suicides in 
the Air Force?
    Answer. While one suicide is too many, I believe the Air Force 
Suicide Prevention Program has been an effective program. The program 
engages leadership at all levels; incorporates suicide prevention into 
Air Force education and training programs; utilizes recurrent mental 
health screening; and fosters a cross-functional approach to enhance 
our ``Wingman'' culture and strengthen the psychological health and 
resiliency of airmen.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
DOD on March 30, 2005 directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel. More recently, Congress 
authorized incentive pay for members of precommissioning programs to 
study critical foreign languages.
    In your view, what should be the priorities of the Federal 
Government to expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. In my view, our Nation's current and future involvement in 
overseas contingency operations will rely heavily on both foreign 
language skills and cultural knowledge. I recommend that all Federal 
agencies develop and incentivize organic foreign language capability 
within their respective organizations. These skills will allow us to 
strengthen and multiply our forces' capabilities across the full 
operational spectrum.
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. I have been advised that the Air Force is currently 
participating in a DOD-directed, Joint Chiefs of Staff-led Capabilities 
Based Assessment; this joint effort is tasked to address the issue of 
foreign language requirements and the shortfalls we currently have in 
the Department. If confirmed, I would continue to assess and monitor 
this process and impact Air Force policy to ensure that we best utilize 
our resources to make up the shortfalls and continue to grow this high-
demand capability within in the Air Force for the benefit of the 
Nation's defense.
    Question. What is your assessment of an appropriate time frame 
within which results can be realized in this critical area?
    Answer. I have been advised that the Air Force is in compliance 
with the requirements outlined in the Defense Language Transformation 
Roadmap (DLTR) and we are in close coordination with the Defense 
Language Office in the preparation of goals and action plans for the 
next phase of the DLTR which will provide a more focused approach to 
build out foreign language capability. If confirmed I will continue to 
monitor compliance and closely coordinate with necessary agencies 
throughout DOD.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are required 
to be assigned to follow-on positions in their Services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is the total number of Air Force personnel currently assigned 
as legislative fellows, and what grades are these officers in?
    Answer. I have been told that for academic year 2008-2009, the Air 
Force has 35 participants in the Air Force Legislative Fellowship 
Program. They have 32 officers in the O-4 grade and three DOD civilians 
in the Pay Band 2/GS-12/13 range attending.
    For academic year 2009-2010, the Air Force has 36 individuals 
projected to start in July 2009. All military members are in the grade 
of O-4 (28 are active duty officers, 2 are Air National Guard members, 
and 2 are Air Force reservists). The remaining four are DOD civilians, 
again in Pay Band 2/GS-12/13. Describe how the Air Force selects 
individual officers for participation in its legislative fellows 
program.
    As I understand the process, the Air Force Personnel Center 
advertises for nominations during the annual Intermediate and Senior 
Developmental Education selection process. Air Force Legislative 
Fellows are initially recommended by their senior Air Force leadership 
and then vectored by their Air Force Developmental Team to the Air 
Force Developmental Education Designation Board for selection.
    Civilian Fellows meet an internal Civilian Developmental Education 
Board from which they are selected and forwarded to the Developmental 
Education Designation Board.
    Question. What is your assessment of the value of the Legislative 
Fellows program to the Air Force and the utilization of officers who 
have served as legislative fellows?
    Answer. I am familiar with the Air Force Legislative Fellows 
program and many other agency programs from my time spent on the Hill. 
I'm an advocate of these fellows programs as they provide participants 
a comprehensive understanding of the complexities of legislative 
operations and Congress's role in the process of government as a whole. 
As a development opportunity for our Airmen, fellowships enable first-
hand understanding of legislative branch functions and how 
congressional decisions affecting Federal agencies' programs are made. 
This exposure provides participants the opportunity to learn how 
legislation is crafted, as well as enabling a fundamental understanding 
of the legislative role in military requirements and procurement. This 
is an experience that will serve these officers well as they progress 
into senior leadership roles. If confirmed I look forward to working 
with the Air Force personnel community to ensure optimum utilization of 
the Fellows' recent experience with Congress.
           defense integrated military human resources system
    Question. The Department and the Services have been moving toward 
adoption of Defense Integrated Military Human Resources System (DIMHRS) 
as a cross-service, fully integrated personnel and pay system. Under 
the proposed timeline, the Army is the first in line to launch DIMHRS, 
with the Air Force to follow. Recent reports indicate technical 
difficulties will postpone the Army's launch date.
    What is the status of the Air Force's implementation of DIMHRS? 
What is your assessment of the need for an integrated, cross-service 
personnel and pay system?
    Answer. I understand that DOD is in the process of transitioning 
the core DIMHRS software to the Services for completion of tailored 
operational systems. The Air Force is establishing an acquisition 
program office to complete the solution, and will use the core software 
to the maximum extent practical and if confirmed, will aggressively 
engage to ensure fielding of the system.
    Question. What is your understanding of the Air Force's evaluation 
of the adequacy of DIMHRS and other alternative personnel management 
systems for the Air Force?
    Answer. If confirmed, I will carefully evaluate the adequacy of 
DIMHRS and other alternative personnel management systems for the Air 
Force?
    Question. If confirmed, what changes, if any, would you recommend 
to the implementation schedule and process currently in place?
    Answer. If confirmed, I would review the assessment and 
implementation plan to ensure it reflects best practices and is 
supported by a solid business case. If I discover deficiencies in the 
plan, I will make appropriate recommendations, after cross-Service 
coordination.
                            gi bill benefits
    Question. Last year, Congress passed the Post-September 11 Veterans 
Educational Assistance Act that created enhanced educational benefits 
for servicemembers who have served at least 90 days on active duty 
since September 11. The maximum benefit would roughly cover the cost of 
a college education at any public university in the country.
    What is your assessment of the effect of the act on recruiting and 
retention of servicemembers?
    Answer. I understand the GI Bill has always been a positive 
recruiting and retention tool and I expect the post-September 11 GI 
Bill to continue this legacy. I believe it is too soon to have 
empirical data regarding the exact effect the new GI Bill has on 
recruiting, but there are stories from the field that the new GI Bill 
is a major point of discussion for potential recruits and is a major 
recruiting incentive. In addition to the revised education benefits, I 
believe the revised eligibility and transferability will have a 
positive effect on morale in general.
    If I am confirmed I will share any empirical data regarding the 
effect of the post-September 11 GI Bill on recruiting, retention, and 
morale with this committee.
    Question. What is your evaluation of the sufficiency of the 
implementation plan for the transferability provisions contained in the 
act?
    Answer. I have been informed that the Air Force is working closely 
with DOD on the implementation of this new program and that DOD will 
publish its implementing policies in the near future. If confirmed, I 
will continue to ensure a close working relationship with DOD and our 
Sister Services so that the program is well-executed and consistent 
with Air Force policy.
                           air national guard
    Question. The Commission on the National Guard and Reserves (CNGR) 
issued its report in January 2008, and since then the Department has 
been engaged in evaluating and implementing the Commission's 
recommendations.
    What do you consider to be the most important recommendations of 
the Commission relating to the National Guard, and which 
recommendations, in your view, should receive the highest priority for 
implementation?
    Answer. The CNGR report in 2008 provided 95 recommendations for 
change. I believe the CNGR did a remarkable job of examining the issues 
of the Reserve components. Every recommendation provides a level of 
importance within its own right. There are themes that remain 
consistent throughout the report. These include transforming the Guard 
and Reserve with the means to become an Operational Reserve of the 21st 
century with the effective implementation of a continuum of service for 
its members. Generically, this core concept provides for Reserve 
component changes in training, equipping, career progression, family 
and member benefits, and employer support.
    Question. In your view, would it facilitate integration of Active 
and Reserve components if the Director of the Air National Guard was 
dual-hatted with responsibilities under the Chief of Staff of the Air 
Force?
    Answer. The Director of the Air National Guard reports to the Chief 
of the National Guard Bureau (CNGB). Under current DOD Directive, the 
CNGB serves as the principal advisor to the Secretary of the Air Force, 
and the Chief of Staff of the Air Force, on matters relating to the Air 
National Guard. As I understand it, dual-hatting the Director of the 
Air National Guard would be contrary to current DOD Directives and the 
National Guard Bureau Charter.
    Question. With respect to the wearing of the military uniform, 
under what circumstances should personnel of the National Guard be 
authorized to wear their Air Force uniforms?
    Answer. Present and retired members of the Air National Guard 
should wear the Air Force uniform on occasions and under circumstances 
prescribed by current Air Force and Air National Guard Instructions.
    Question. Do you believe that Air National Guard personnel should 
be allowed to wear their uniforms at political rallies or events 
related to advancing legislation of interest? If so, under what 
circumstances?
    Answer. Air National Guard members should only wear the Air Force 
uniform as prescribed by current Air Force regulations and supplemented 
by Air National Guard Instructions.
    Question. From an organizational and force management perspective, 
what goals do you hope to accomplish with respect to the Air National 
Guard if you are confirmed?
    Answer. If confirmed, I will work to support the needs of the Air 
Reserve components as part of the totally integrated Air Force through 
policy oversight of human resources and Reserve component programs.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness, monitoring, 
antiquated pay systems, limited transition assistance programs upon 
demobilization, and lack of access to members of the Individual Ready 
Reserve. Reserve Force management policies and systems have been 
characterized in the past as ``inefficient and rigid'' and readiness 
levels have been adversely affected by equipment stay-behind, cross-
leveling, and reset policies.
    What is your assessment of advances made in improving Air Force 
Reserve component mobilization and demobilization procedures, and in 
what areas do problems still exist?
    Answer. It is too early for me to make an assessment of the 
problems that may exist in the mobilization and demobilization process. 
From the outside looking in, the Air Force seems to do very well with 
the way it employs the Reserve components.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. The Air Force's Total Force approach resourcing and 
training the Reserve components goes a long way to ensuring their 
readiness for mobilization and air expeditionary force participation.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the Air National Guard and Air Force 
Reserves?
    Answer. At this point, based on my limited knowledge, I feel 
current statutory authorities are sufficient to support mobilization 
requirements. If confirmed, I will be in a better position to assess 
whether to recommend changes to applicable law and policy.
    Question. Do you agree that Air National Guard and Air Force 
Reserve personnel should be mobilized to augment civilians deployed to 
Afghanistan?
    Answer. Yes, I believe that National Guard and Reserve component 
personnel bring skills and experience that can be used to augment other 
executive branch agencies.
   medical and dental readiness of air national guard and air force 
                           reserve personnel
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. First, let me say that I am extremely proud of our Reserve 
component servicemembers and their service to our Nation during this 
time of war and transformation. Based upon what I have seen of the Air 
Reserve components, this has not been an issue that prevents their 
contribution to the Total Force. However, if confirmed I will assess 
the effectiveness of reporting on the medical and dental readiness and 
to evaluate the need for policy changes and increased oversight.
    Question. How would you improve upon the Air Force's ability to 
produce a healthy and fit Reserve component?
    Answer. At present, the Air Reserve components maintain the same 
level of fitness as the Regular Air Force. These standards have served 
them well and, if confirmed, I hope to work with the Air Force to 
ensure our Reserve components remain healthy and fit.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in recent years and 
recommendations of the CNGR have proposed numerous changes to the roles 
and responsibilities of the National Guard and Reserves. Several of the 
proposed changes have been implemented, and numerous others are under 
consideration.
    How do you assess the changes in the roles, mission, and 
authorities of the CNGB and the Air National Guard?
    Answer. From my perspective, the changes to the roles, mission and 
authorities of the CNGB elevates the National Guard to a level of 
visibility needed to ensure it is properly equipped and resourced to 
carry out its dual-role mission.
    Question. In your view, do the current Air Force processes for 
planning, programming, and budgeting sufficiently address the 
requirements of the Air National Guard? What is the appropriate role of 
the CNGB in this regard?
    Answer. I have not had sufficient time to examine the Air Force 
processes for planning, programming and budgeting, nor, am I aware of 
how the CNGB interacts within this process. If confirmed, I look 
forward to engaging in this process to ensure our Air Reserve 
components are properly equipped and resourced to carry out their 
missions and responsibilities.
                 systems and support for wounded airmen
    Question. Wounded soldiers from OEF and OIF deserve the highest 
priority from the Air Force for support services, healing and 
recuperation, rehabilitation, evaluation for return to duty, successful 
transition from active duty if required, and continuing support beyond 
retirement or discharge.
    In your view, what were the most critical shortcomings in warrior 
care since 2001?
    Answer. From my understanding, the Air Force has been doing an 
outstanding job caring for our wounded airmen since 2001. The most 
critical shortcoming that I have been advised on is retaining 
individuals who wished to remain on active duty and providing policy to 
ensure they could continue to be productive members of the Service. If 
confirmed, it will be my distinct honor and privilege to do all I can 
to continue to promote the highest standard of lifelong care for our 
Wounded Warriors.
    Question. What is your assessment of the effectiveness of the Air 
Force's response?
    Answer. I have been advised that the Air Force has taken great 
action in addressing this issue and made retention, if possible, a 
priority. The biggest shortcoming facing the Air Force in the near 
future is reintegration into civilian communities if retention is not 
possible especially for those with non-visible wounds of war such as 
traumatic brain injury or post-traumatic stress disorder. Employment 
for our wounded warriors outside of the Air Force is not just a Service 
issue but an American issue. The Air Force must continue to work 
through civilian hiring policies to hire wounded veterans when 
qualified, partner with organizations like the National Chamber of 
Commerce for local placement with business, and other helping 
organizations.
    If confirmed, I will assess the effectiveness of the Air Force's 
response and continue to work with Congress to ensure our warriors and 
their survivors receive the highest possible care and support.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Air Force's support for 
wounded soldiers, and to monitor their progress in returning to duty or 
to civilian life?
    Answer. If confirmed, I will continuously assess the efficiency and 
appropriateness of the Air Force's Warrior and Survivor Care Program 
and implement strategies and seek additional resources as appropriate 
to ensure the Air Force meets the needs of our wounded airmen.
    Question. Studies following the revelations at Walter Reed point to 
the need to reform the DOD disability evaluation system. What is your 
assessment of the need to streamline and improve the Air Force's 
disability evaluation system?
    Answer. I am informed that beginning November 26, 2007, the Army 
started to test a revamped physical disability evaluation program at 
Walter Reed Army Medical Center, streamlining the process used to 
determined soldiers' fitness for service or eligibility for military 
and veterans' benefits. I am advised that key features of this pilot 
program include a single medical examination and a single-sourced 
disability rating. It is my understanding that the Department of VA 
conducts a single comprehensive exam and will rate all medical 
conditions. The military departments accept the Department of VA rating 
for all medical conditions determined unfitting for continued military 
service unless the condition involves noncompliance, misconduct, or a 
non-service aggravated medical condition which existed prior to 
service. Based on the limited information I have so far, I believe the 
process does need to be improved. If confirmed, I will work to this end 
with stakeholders in the Air Force as well as with experts in the DOD 
and the Department of VA.
    Question. If confirmed, how will you address any need for change?
    Answer. If I am confirmed, I will listen to the information 
presented by the experts in this area and study the process myself. 
After becoming fully informed on the issues, I would work with the 
stakeholders in the Air Force and appropriate personnel in both the DOD 
and the Department of VA to determine what areas should be changed and 
how best to accomplish those changes.
              quadrennial review of military compensation
    Question. The Department completed work last year on the 10th 
Quadrennial Review of Military Compensation (QRMC), releasing Volume I 
of its report in February 2008 and Volume II in July 2008. Among other 
recommendations, the QRMC proposes a new defined benefit retirement 
plan that more resembles the benefits available under the Federal 
Employee Retirement System than the current military retirement 
benefit; increasing TRICARE fees for retirees; and the adoption of 
dependent care and flexible spending accounts for servicemembers.
    What is your assessment of the QRMC recommendations, particularly 
the proposed new defined retirement plan?
    Answer. Reductions in current entitlements and benefits could 
impact future recruiting and retention efforts. Proposed changes in 
military retirement entitlements and benefits must be thoroughly 
reviewed to fully understand these impacts. If I am confirmed, I will 
be mindful that our military forces, who are often called upon to fight 
under extremely arduous conditions, should receive deserving pay and 
entitlements.
    Question. Which recommendations, if any, would you propose that 
Congress implement?
    Answer. I believe that any proposed action on the earlier QRMC 
recommendation will require thorough review and analysis to understand 
the impact. At this time, I do not have a specific proposal for 
implementation of any change.
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and 
forward-thinking management of civilian senior executives.
    What is your vision for the management and development of the Air 
Force civilian senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. I am told that the Air Force believes that deliberate 
management of this diverse population is of preeminent importance. They 
also feel that development of our senior executives--and those who one 
day will become senior executives--is equally important. The Air Force 
is committed to providing opportunities--educational and experiential--
to enhance leadership skills for all executives, including those in the 
acquisition, financial management and scientific and technical fields. 
If confirmed, I will continue this vision, ensuring deliberate 
management and development of the Air Force senior executive workforce.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
          political activity by military personnel in uniform
    1. Senator McCain. Mr. Ginsberg, in 2005, Senators Bond and Leahy 
conducted a political rally across the street from the Senate Russell 
Building in connection with their introduction of their National Guard 
Empowerment Act. Approximately 30 Air and Army National Guard general 
officers in uniform participated in that rally as proponents and 
advocates for the legislation. Do you think it is permissible--or good 
policy--for military personnel to participate in the political process 
while wearing their military uniforms?
    Mr. Ginsberg. Sir, though Senator Leahy and Senator Bond organized 
and announced this as a news conference and not as a political rally, I 
do believe it is neither permissible nor good policy for military 
personnel to participate in a political process while wearing their 
military uniforms. In fact, Department of Defense guidance states that 
members should not wear the military uniform when participating in 
public speeches, interviews, picket lines, marches, or any public 
rallies, or in any public demonstration when the Air Force sanction of 
the cause for which the activity is conducted may be implied.

    2. Senator McCain. Mr. Ginsberg, with respect to members of the 
National Guard, reservists, and Active-Duty members, do you think that 
under any circumstances they should be authorized to wear their 
uniforms while demonstrating in favor of legislation?
    Mr. Ginsberg. Sir, no I do not. Service policy for both Army and 
Air Force is consistent in prohibiting wearing of the uniform by anyone 
participating in the furtherance of political activities or interests 
that result in an inference of official sponsorship. Regardless of duty 
status, this policy applies to National Guard, Reserve, and active duty 
airmen. I believe that this is sound policy and should be continued.

    3. Senator McCain. Mr. Ginsberg, do you think that is consistent 
with a politically neutral military?
    Mr. Ginsberg. My previous answers with respect to military members 
not wearing uniforms when participating in public speeches, interviews, 
picket lines, etc. is consistent with a politically neutral military.

                          tricare for reserves
    4. Senator McCain. Mr. Ginsberg, the Senate recently adopted a 
resolution which Senator Levin and I, along with Senators Ben Nelson 
and Graham, co-sponsored recommending that 2009 be recognized as the 
Year of the Military Family. Where are the gaps in support for military 
families, and what would you do, if confirmed, to close those gaps 
within the United States Air Force?
    Mr. Ginsberg. I am familiar with the testimony given by Ms. Eliza 
Nesmith, a member of the Air Force's Deputy Chief of Staff for 
Manpower, Personnel and Services staff, given earlier this month with 
respect to gaps in support of military families. I understand the gaps 
to include not having a clear understanding of the processes through 
which child and family adjustment is enhanced or hindered; not having a 
clear understanding of how multiple deployments influence families; and 
not having a clear understanding of how deploying through the National 
Guard/Reserve versus Active Duty can affect adjustment. I look forward 
to working with senior Air Force and DOD leadership to bridge these and 
any other gaps that may exist for the Total Force, if confirmed.

                 personnel reductions in the air force
    5. Senator McCain. Mr. Ginsberg, the President's budget request for 
fiscal year 2010 includes funding for an Active-Duty end strength of 
331,700 airmen. Although this represents an increase of almost 16,000 
over previous plans to shrink to 316,000 personnel, there are still 
concerns being expressed about the stress on airmen, particularly in 
aircraft maintenance and base support functions. Yet, the halt in the 
reduction of end strength in fiscal year 2010 is proposed to allow the 
Air Force to provide manpower for new and emerging missions as opposed 
to backfilling the shortages in existing operational capabilities. If 
confirmed, will you immediately assess the effect of manpower 
distribution among Air Force specialty codes for maintenance and base 
support and report back to this committee with the results of your 
review?
    Mr. Ginsberg. The 331,700 active duty end strength should allow the 
Air Force to fund its most pressing requirements. As I understand it, 
the Deputy Chief of Staff for Manpower, Personnel and Services, along 
with the Chief of the Staff of the Air Force have already identified 
and began assessing the effect of manpower distribution among Air Force 
specialty codes to include maintenance and base support, and I will 
eagerly join in the assessment to produce a workable and long lasting 
solution. If confirmed, upon completion of my review, I will report 
back to the committee with my assessment.

    6. Senator McCain. Mr. Ginsberg, how will you assess the health and 
readiness of the force as Air Force personnel are asked to do more with 
less people?
    Mr. Ginsberg. If confirmed, I will work with the Deputy Chief of 
Staff for Manpower, Personnel and Services, Chief of the Air Force 
Reserves, the Director of the Air National Guard, and the Air Force 
Surgeon General to assess the health and readiness of the force. I am 
told that tools currently exist such as readiness reports and climate 
assessments and will work to identify where the largest ``health and 
readiness'' gaps exist and direct my focus on those, if confirmed.
                                 ______
                                 
    [The nomination reference of Daniel B. Ginsberg follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 2, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Daniel B. Ginsberg of the District of Columbia, to be an Assistant 
Secretary of the Air Force, vice Craig W. Duehring.
                                 ______
                                 
    [The biographical sketch of Daniel B. Ginsberg, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch by Daniel Ginsberg
     Daniel Ginsberg is the Senior Defense Policy Advisor to U.S. 
Senator Patrick Leahy of Vermont. Serving as a legislative assistant to 
the senior Senator from Vermont since 1999, Mr. Ginsberg assists 
Senator Leahy with his work as a top member of the U.S. Senate Defense 
Appropriations Subcommittee and as the co-chair of the U.S. Senate 
National Guard Caucus.
    Prior to this, Mr. Ginsberg served on the staff of U.S. Senate 
Committee on Armed Services during the chairmanship of U.S. Senator Sam 
Nunn of Georgia. He has held various research positions at the RAND 
Corporation, the International Institute for Strategic Studies, and the 
Center for Strategic and Budgetary Assessments. He has also completed 
internships at the U.S. Senate Permanent Subcommittee on 
Investigations, the United States Mission to the North Atlantic Treaty 
Organization, the Office of the Assistant Secretary of Defense (Public 
Affairs), and Senator Nunn's Atlanta Office.
    Mr. Ginsberg is a 1995 graduate of the University of Michigan, 
including a year abroad at the London School of Economics where he 
completed the General Course. He earned an M.A. in international 
economics and strategic studies in 1998 from the Johns Hopkins 
University's Nitze School of Advanced International Studies. From 1998 
to 1999, he undertook a year-long fellowship at the University of 
Chicago, carrying studies with the Department of Political Science and 
the Committee on Social Thought.
    Mr. Ginsberg was born in West Lafayette, IN, and raised in 
Dunwoody, GA, an Atlanta suburb. He currently lives in Washington, DC 
with his wife Jessica Rose.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Daniel B. 
Ginsberg in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Daniel Brian Ginsberg (sometimes known as Danny Ginsberg).

    2. Position to which nominated:
    Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs.

    3. Date of nomination:
    June 2, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 13, 1974; West Lafayette, IN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Jessica L. Rose.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Chicago, 09/98-05/99, fellowship, no degree
    Johns Hopkins University School of Advanced International Studies, 
09/96-05/98, M.A., 05/98.
    London School of Economics, 10/94-05/95, General Course, year 
abroad, no degree.
    University of Michigan, 09/92-12/95, B.A., 12/95.
    Dumwoody High School, Atlanta, GA, 09/89-06/92, high school 
diploma, 06/92.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Defense Policy Advisor, Office of U.S. Senator Patrick 
Leahy, Washington, DC, 11/99-present.
    Research Fellow and Consultant, RAND, Washington, DC, 04/99-11/99.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Research Assistant, U.S. Senate Committee on Armed Services, 
Washington, DC, 05/93-08/93, 05/94-08/94, and 01/96-10/96.
    Intern, U.S. Mission to NATO, Brussels, Belgium, 05/95-08/95.
    Intern, U.S. Senate Permanent Subcommittee on Investigations, 
Washington, DC, 05/92-08/92.
    Intern, Office of the Assistant Secretary of Defense for Public 
Affairs, Washington, DC, 06/91.
    Intern, Office of U.S. Senator Sam Nunn, Atlanta, GA, 10/90-05/91 
and 09/91-05/92.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    09/2004, John Kerry for President, $100.
    09/2008, Obama for America, $2,000.
    10/2008, Obama for America, $195.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    National Guard Association Patrick Henry Award, 2003.
    The Military Coalition Freedom Award, 2003.
    The Enlisted Association of the National Guard Militia Award, 2002.
    The Reserve Officers Association Appreciation Award, 2001.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    From September 2002 through April 2009, I have written articles on 
classical music and opera (concert reviews, feature pieces, and 
interviews) for the Washington Post and a few other publications, 
including the Washington City Paper and Bloomberg News. I have never 
accepted any payment for these articles, following Senate rules on 
outside writing and speaking. None of the articles related in any way 
to the Department of Defense, the U.S. Government, or politics. I have 
severed my relationship with the Washington Post and no longer write 
music reviews or carry out any music journalism activities. Attached is 
a full listing of articles that I have had published.
    [Witness responded and information is retained in the committee's 
executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given no formal speeches. Based off general notes, I have 
given extemporaneous remarks on several military and defense related 
topics at workshops and conferences.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Daniel B. Ginsberg.
    This 3rd day of June, 2009.

    [The nomination of Daniel B. Ginsberg was reported to the 
Senate by Chairman Levin on June 24, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 6, 2009.]


 
NOMINATIONS OF GEN. JAMES E. CARTWRIGHT, USMC, FOR REAPPOINTMENT TO THE 
 GRADE OF GENERAL AND REAPPOINTMENT AS THE VICE CHAIRMAN OF THE JOINT 
 CHIEFS OF STAFF; AND ADM ROBERT F. WILLARD, USN, FOR REAPPOINTMENT TO 
THE GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED STATES PACIFIC COMMAND

                              ----------                              


                         THURSDAY, JULY 9, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, Bill Nelson, Ben Nelson, Webb, Udall, Hagan, Begich, 
Burris, McCain, Inhofe, Chambliss, and Thune.
    Also present: Senator Inouye.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Jessica L. 
Kingston, research assistant; Gerald J. Leeling, counsel; 
William G.P. Monahan, counsel; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Daniel A. Lerner, professional staff member; Lucien L. 
Niemeyer, professional staff member; Diana G. Tabler, 
professional staff member; Richard F. Walsh, minority counsel; 
and Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin and Breon N. 
Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Nick Ikeda, assistant to Senator Akaka; 
Christopher Caple, assistant to Senator Bill Nelson; Ann 
Premer, assistant to Senator Ben Nelson; Patrick Hayes, 
assistant to Senator Bayh; Gordon I. Peterson, assistant to 
Senator Webb; Jennifer Barrett, assistant to Senator Udall; 
Roger Pena, assistant to Senator Hagan; Lindsay Young, 
assistant to Senator Begich; Gerald Thomas, assistant to 
Senator Burris; Lenwood Landrum and Sandra Luff, assistants to 
Senator Sessions; Clyde A. Taylor, IV, assistant to Senator 
Chambliss; Jason Van Beek, assistant to Senator Thune; Brian W. 
Walsh, assistant to Senator Martinez; and Chip Kennett, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning, the committee meets to consider the 
nominations for two very significant military positions. 
General James Cartwright, United States Marine Corps, has been 
nominated for a second term as Vice Chairman of the Joint 
Chiefs of Staff; and Admiral Robert Willard, United States 
Navy, has been nominated to be the Commander of U.S. Pacific 
Command (PACOM).
    On behalf of the committee, I want to thank you both for 
decades of service to this country and for your willingness to 
continue to serve. The country appreciates--and this committee 
reflects that appreciation--the sacrifices that you and your 
families have made along the way.
    The support that our military families provide is critical, 
and we want to do all that we can to support them. Both of you 
have your family members with you today, and when it comes your 
time to give your opening statements, we would welcome your 
introducing family members.
    Before I give my opening statement, Chairman Daniel Inouye 
is with us this morning to make an introduction. Given his 
incredible schedule, I am going to call on him before I 
complete my opening statement.
    It is great to have you with us always, Danny. Senator 
Inouye?

STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM THE STATE 
                           OF HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman, Senator 
McCain, and distinguished members of the committee.
    I am pleased and honored to be here this morning to 
introduce Admiral Robert F. Willard, nominee for the position 
of Commander of the U.S. Pacific Command.
    I commend this wise decision to designate Admiral Willard 
as our next PACOM Commander. His invaluable experience as 
current Commander of the U.S. Pacific Fleet will serve him well 
as he leads our Nation's oldest and largest command.
    He is a graduate of the U.S. Naval Academy, an F-14 
aviator, operations officer, and executive officer of the Navy 
Fighter Weapons School known as ``Top Gun.'' He has commanded 
the Screaming Eagles, the amphibious flagship USS Tripoli, and 
the aircraft carrier USS Abraham Lincoln.
    His experiences in the Pacific area of responsibility and 
his thorough knowledge and understanding of the region's 
history would be a tremendous asset to anyone that might assume 
the helm at PACOM. Commanding U.S. Naval Forces in the Pacific 
has given him tremendous exposure to the challenges and rewards 
that face our military in that area of the world.
    Because of Admiral Willard's firm grasp of the history of 
the Asia-Pacific region, he understands the geopolitical 
dynamics at work, which confront the United States. The PACOM 
Commander's watchful eye over such an expansive area cannot be 
accomplished alone, and this enforces cooperation between U.S. 
military forces and those of our friends in the region.
    I have had the honor and pleasure of working with Admiral 
Willard during his tenure as Commander of U.S. Pacific Fleet on 
very important issues that face our Navy in the Pacific Ocean. 
The Admiral and I have discussed the value of Pearl Harbor, the 
shipyard, the Pacific Missile Range on a number of occasions. 
This intimate knowledge of Hawaii's importance to our national 
defense is in part why Hawaii will be welcoming the first of 
its new Virginia-class submarines, the USS Hawaii, later this 
month.
    Mr. Chairman, December 7, 1941, is a distant memory for 
most Americans. On that quiet Sunday morning, Hawaii's 
strategic importance was impressed on this Nation by an attack 
on our military forces on the island of Oahu and propelled our 
Nation into the 20th century's second world war.
    Despite time and technological advances, the significance 
of Hawaii's location in the Pacific has not changed, and it is 
still essential to the defense of all Americans and our allies 
in this region. There are many challenges and opportunities for 
the United States in the Asia-Pacific region. I have complete 
faith in Admiral Willard's ability to lead PACOM.
    It is essential our military have its most capable leaders 
at the helm to guide us through this difficult time. Mr. 
Chairman and members of the committee, I am confident Admiral 
Willard's leadership will benefit all of our forces in the 
Pacific and ensure our national security.
    Thank you very much.
    Chairman Levin. Thank you so much, Senator Inouye. It is 
always great to have you here. It is a very meaningful 
introduction, and I know Admiral Willard is most appreciative 
as well.
    These nominees are going to face a host of challenges. 
General Cartwright is going to continue to serve as our 
country's second-highest ranking military officer, carrying out 
the Nation's military priorities and playing a major role in 
the Department of Defense's (DOD) acquisition process. General 
Cartwright is also responsible for making sure that the needs 
of the combatant commanders are addressed in a timely fashion--
that they have what they need to carry out their missions when 
they need it.
    General Cartwright, I first would like to take this 
opportunity to thank you for your candor, your accessibility 
over the past few years, and to let you know that all of us 
appreciate your willingness to meet with both members and staff 
of this committee and have so many significant and serious 
discussions over those years on a number of issues.
    Admiral Willard will assume command of PACOM at a time of 
increasing tensions with North Korea and as a result of a 
continuing series of provocative North Korean actions and a 
major repositioning of U.S. forces within the Pacific Rim.
    Both of our nominees will lead our military in meeting the 
challenges of preventing the spread of weapons of mass 
destruction (WMD), dealing with stateless terrorism, ethnic 
conflict, and violent religious extremism. General Cartwright 
will face these challenges globally, Admiral Willard in a 
region with a particularly troublesome history of 
proliferation.
    In addition to your responsibilities to act as needed in 
the absence of the Chairman of the Joint Chiefs, General 
Cartwright, you have important responsibilities in the context 
of acquisition, nuclear, space, cyber security, and ballistic 
missile defense (BMD) matters.
    It is the responsibility of the Joint Requirements 
Oversight Council (JROC) which you chair, to identify the 
requirements of military commanders and to see that the 
acquisition process meets these requirements. An additional 
responsibility of yours is to co-chair with the Deputy 
Secretary of Defense, the Deputy's Advisory Working Group. This 
group makes the key decisions as to the Department's resources 
and what major investments will be made.
    Between those two groups, the JROC and the Deputy's 
Advisory Working Group, you have the opportunity to shape, 
through the investment decisions, the long-term capabilities of 
the Department and the Military Services. Your experience in 
this capacity--General, given that experience, we will be 
interested in hearing from you as to how the changes in the 
Defense Acquisition Reform Act which Congress recently passed 
might assist you in improving the acquisition process.
    We also would be interested, General, in your thoughts on 
the opportunities for future U.S.-Russian military cooperation, 
including missile defense, in light of the recently completed 
meetings between President Obama and Russian President Dmitry 
Medvedev.
    Admiral Willard, you have had extensive experience in the 
Pacific, having served as Commander of Carrier Group Five, the 
Commander of the U.S. 7th Fleet, as well as a tour of duty as 
Deputy Commander of the U.S. Pacific Fleet and now as the 
Commander of the U.S. Pacific Fleet.
    With that considerable regional experience and your many 
other impressive accomplishments in the Navy, you bring a 
strong background for assignment as the Commander of PACOM.
    Admiral, we would be interested in your assessment of the 
situation on the Korean peninsula and the current efforts to 
track ships suspected of carrying illicit cargo to and from 
North Korea in violation of the United Nations (U.N.) Security 
Council resolutions. We would be interested also in our 
military relations with China and how you see that relationship 
evolving.
    We look forward to hearing from our witnesses this morning. 
We thank them again for their service.
    I now call upon Senator McCain for his opening remarks.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Senator Levin.
    Mr. Chairman, I join you in welcoming General Cartwright 
and Admiral Willard and congratulating them on their 
nominations. I thank each of them and their families for their 
service.
    General Cartwright, you have demonstrated an extraordinary 
understanding of the global posture the United States must 
maintain in this area of constantly changing threats, and I 
believe that you are well-qualified for a second term as Vice 
Chairman.
    I would like to echo the words of Senator Levin. You have 
been very candid and forthcoming with the members of this 
committee and with the two of us, and it is much appreciated on 
many of the difficult issues that we face. I applauded your 
comments last March about DOD's acquisition strategy, which you 
underscored that we must devote our procurement dollars to 
weapon systems that address the most likely threats instead of 
what some consider to be the most dangerous.
    This was certainly borne out later in Secretary Gates' 
recommendations, and I agree with your premise that our weapon 
systems must impose greater cost on our potential and current 
enemies than they do on us. I hope you and we in Congress will 
be able to adhere to this philosophy in the days ahead.
    With the recent launch of the major coalition operation in 
southern Afghanistan, I look forward to hearing more about how 
we intend to proceed in that theater. Success in Afghanistan 
requires that we employ troop levels appropriate to the mission 
we are asking our military to carry out. As a result, it is 
vital that the commanders on the ground are free, and perceive 
they are free, to request the forces they conclude are 
necessary.
    General Cartwright, I hope to hear from you precisely the 
degree of freedom that General McChrystal will have to request 
troops and resources and how that fits into recent reports 
suggesting the administration was preemptively counseling 
against higher force levels.
    General Cartwright, one of the most--and I will talk about 
this more later--extraordinary articles I have seen in my many 
years of service appeared in the Washington Post, where 
apparently a reporter for the Washington Post was brought into 
a meeting in Afghanistan by General Jim Jones, the National 
Security Advisor, with the military. At that time, according to 
this article, General Jones said there would be no additional 
troops under any circumstances.
    I will be interested in hearing about how that jives with 
the supposed delay in a decision for an additional 10,000 
troops that at that time the President had ``delayed'' the 
decision on. I must say, I have never seen such a scenario 
where a reporter is brought into a briefing between the 
President's National Security Advisor and our military 
commanders in the field.
    With the President just concluding a round of talks with 
his Russian counterpart on arms control, our national strategic 
capabilities, including missile defense, are currently at 
center stage. I have previously advocated for significant 
reductions in nuclear arsenals and for other steps that would 
reduce the risk that nuclear weapons would ever be used.
    I look forward to hearing your thoughts on the target 
numbers of warheads and delivery vehicles announced this week, 
and on what the implications of such reductions might be for 
the urgent need to invest in the modernization of both the 
stockpile and the complex-wide intellectual and physical 
infrastructure needs.
    With respect to the planned European-based missile defense 
system in Poland and the Czech Republic, I am concerned that 
there is a perception, one that has been strengthened by the 
testimony of administration officials before this committee, 
that the United States is preparing to back away, even abandon 
commitments made to these countries during the past 
administration. I believe it is essential in the future that we 
keep faith with our close allies in Poland and the Czech 
Republic.
    Admiral Willard, you have an outstanding record of joint 
and naval service, and you are well-qualified to assume 
responsibilities of PACOM Commander. The importance of the 
theater, economically and from a strategic security standpoint, 
can't be overstated, and there are a number of short- and long-
term challenges facing the United States in the Asia-Pacific 
region.
    North Korea continues its variety of belligerent actions 
with the firing of missiles over the weekend and new reports of 
a possible Pyongyang-directed cyber attack on the United States 
and South Korea. I look forward to hearing about how PACOM 
intends to enforce the latest U.N. Security Council resolution 
banning North Korea's transit at sea of nuclear and missile 
technologies and what the limits are to that enforcement.
    In addition, I hope to hear your thoughts on Japanese 
reaction to any changes in our nuclear posture, including arms 
reduction carried out through the Strategic Arms Reduction 
Treaty (START), and about evolving Chinese naval capabilities 
and the value of military-to-military exchanges with China.
    Again, I thank our nominees and their families for their 
service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    General Cartwright?

 STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, NOMINEE FOR THE 
     POSITION OF VICE CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Cartwright. Thank you, Chairman Levin and Senator 
McCain, for this opportunity to appear today.
    I believe the support of loved ones reinforces our 
servicemembers' ability to serve this Nation. This has been 
especially true for me. So, it is with great pleasure that I 
have the opportunity to introduce my wife, Sandee, who is able 
to be with me this morning, along with our daughter Jayme and 
her husband, Chris--both members of the Defense Intelligence 
Agency (DIA).
    Our other daughter, Billee, is awaiting the return of her 
husband, who is on his fourth overseas tour. He is a member of 
the second battalion of the 19 Special Forces Group of the West 
Virginia National Guard. We are waiting in the next couple of 
days to welcome him home.
    I am grateful for all that they have done and what they 
have meant to me throughout my service.
    Over the last nearly 2 years, I have had the privilege of 
working with the members of this committee on many vital 
issues, helping to shape the force, meet the wide variety of 
challenges our Nation faces. If confirmed, I look forward to 
continuing our efforts in support of the Nation.
    I stand ready for your questions.
    Chairman Levin. Thank you, General.
    Admiral Willard?

    STATEMENT OF ADM ROBERT F. WILLARD, USN, NOMINEE TO BE 
                COMMANDER, U.S. PACIFIC COMMAND

    Admiral Willard. Thank you, Chairman Levin, Senator McCain. 
I would like to thank the committee for scheduling this hearing 
during such a busy time in Washington, DC.
    I would like to thank the Secretary of Defense and 
President Obama for their confidence in my service to have put 
forward this nomination.
    I would like to thank Senator Inouye for his very kind 
introduction and for his enduring support to our military 
throughout the world and especially in Hawaii.
    I am deeply honored to be considered for this command, and 
I think I appreciate the vital importance of the Asia-Pacific 
region to this Nation.
    If I have one best attribute in pursuing this command, she 
is sitting behind me. My wife, Donna, pinned these wings on 35 
years ago, and since then, she has devoted herself to the 
spouses and families of our military. Along the way, she raised 
three wonderful children--Jennifer, Bryan, and Mark--who, in 
turn, have given us three wonderful grandchildren to enjoy.
    I would like to also introduce Donna's brother, who is here 
today, Mike Yelverton, a senior executive in DIA; his wife, 
Anita; and son Rudy.
    I very much look forward to opportunities, if confirmed, to 
work with this committee. I thank this committee for their 
devotion to our uniformed men and women throughout the country. 
Sir, I look forward to your questions.
    Chairman Levin. Thank you very much, Admiral.
    Let me ask both of you these questions.
    Senator Inouye. May I be excused?
    Chairman Levin. Oh, of course. I am sorry. Senator, I 
should have given you that formal welcome and farewell before. 
Thank you for coming.
    These are the standard questions we ask of nominees. Have 
you adhered to applicable laws and regulations governing 
conflicts of interest?
    [Both witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [Both witnesses answered in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [Both witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [Both witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [Both witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify upon 
request before this committee?
    [Both witnesses answered in the affirmative.]
    Do you agree to give your personal views when asked before 
this committee to do so, even if those views differ from the 
administration in power?
    [Both witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee or to consult with 
the committee regarding the basis for any good faith delay or 
denial in providing such documents?
    [Both witnesses answered in the affirmative.]
    Thank you.
    Let us try an 8-minute first round today.
    General Cartwright, there was a Joint Understanding issued 
by President Obama and President Medvedev on Monday indicating 
that the target range of deployed strategic nuclear weapons is 
in a range of 1,500 to 1,675. The current range under the 
Moscow Treaty is 1,700 to 2,200. Now that understanding also 
indicates that each party determines for itself the composition 
and structure of its strategic offensive arms.
    From a military requirements perspective, General, are you 
comfortable with those new ranges?
    General Cartwright. I am, Senator.
    Chairman Levin. Could you tell us briefly from a military 
perspective why is the ability to determine composition and 
structure important, and does this flexibility allow for 
greater reductions in both warheads and delivery systems?
    General Cartwright. The key here for the United States is, 
at these levels, we will be able to preserve the triad. So the 
Intercontinental Ballistic Missile side of the force, which is 
our responsive side of the force, is maintained. The survivable 
element of our force, which is borne out in the submarines and 
the sea-launched ballistic missiles, is maintained, and we are 
able to maintain the bombers.
    Bringing those numbers down to 1,500 to 1,675 keeps us in 
that range and allows us to preserve that triad, which I 
believe is important at this stage of the negotiations. 
Bringing down the warheads and then bringing down the delivery 
vehicles gives us that triad and balance, when added into what 
we are now calling the new triad with BMD, gives the Nation the 
protections that it will need as we move to the future.
    Chairman Levin. Thank you.
    General, Secretary Gates indicated on April 6 that the 
President's budget request relative to missile defense shifts 
the focus of our missile defense program to place more emphasis 
on theater missile defense capabilities to defend our forward 
deployed forces and allies against the many existing short- and 
medium-range missiles that we face today and also to place 
greater emphasis on the development and the testing of the 
longer range missile defense. Do you support that approach of 
the administration?
    General Cartwright. I do, Senator. It is key from my 
perspective, one, that the threats that we are actually facing 
today is the proliferation of the short- and medium-range 
ballistic missiles, which are the theater threat. We have had a 
very good test program with the elements of that part of the 
missile defense capability, which are premiered by the Standard 
Missile 3, which goes with the Aegis system aboard ship.
    The Terminal High Altitude Area Defense (THAAD), which is 
the most recent addition, gives us a little more of an area 
defense capability, and Patriot, which gives us a point defense 
capability, point defense being to protect a base or a station 
or something like that.
    Having these capabilities and deploying and focusing on 
getting these capabilities deployed is going to contribute to 
the stability within the region. So in areas like PACOM, we 
will be able to defend both the area of the country and the 
point at the critical infrastructure, bases, et cetera, for us.
    Chairman Levin. Relative to the question of possible 
missile defense cooperation, do you agree with President Obama 
that missile defense cooperation with Russia would serve our 
mutual security interests, could enhance our security against 
potential missile threats from nations like Iran not only by 
preventing Iran from seeking and gaining any psychological 
advantage if they obtain nuclear weapons and missiles, but also 
sending a very clear signal to Iran that the United States and 
Russia are going to work together in that effort?
    General Cartwright. Senator, I believe that multilateral 
approaches to missile defense in general are to our advantage, 
number one. Number two, any ability to cooperate on the missile 
defense with the Russians is highly leveraging for us, both in 
the message it sends in a political or diplomatic form and in 
the capabilities that they can bring to the table that we might 
be able to incorporate into the system.
    Chairman Levin. Would the North Atlantic Treaty 
Organization (NATO) support that effort of ours to work 
together with Russia against that kind of an Iranian threat?
    General Cartwright. I won't speak for all of NATO, but all 
of the members, my counterparts that I talk to, support that 
effort.
    Chairman Levin. General, we asked you a pre-hearing 
question relative to the F-22 production. You indicated that 
you support the administration's request that we limit that 
production.
    Can you tell us if, in fact, you do agree to stop F-22 
production at 187 aircraft and whether or not there have been 
studies conducted by the Office of the Secretary of Defense 
(OSD) that found that the 187 figure was adequate to confront 
future opponents who have robust air-to-air capabilities and 
whether there has also been a Joint Staff study assessing the 
sufficiency and the proficiency of a buy of 187 F-22 aircraft?
    General Cartwright. Senator, I was probably one of the more 
vocal and ardent supporters for the termination of the F-22 
production. The reason is twofold.
    First, there is a study in the Joint Staff that we just 
completed and partnered with the Air Force on that, number one, 
said that proliferating within the United States military fifth 
generation fighters to all three Services was going to be more 
significant than having them based solidly in just one Service 
because of the way we deploy and because of the diversity of 
our deployment. So that is point number one.
    Point number two is in the production of the F-35 Joint 
Strike Fighter, the first aircraft variant will support the Air 
Force replacement of their F-16s and F-15s. It is a very 
capable aircraft. It is 10 years newer in advancement in 
avionics and capabilities in comparison to the F-22. It is a 
better, more rounded capable fighter. That is point number one.
    Point number two is the second variant which is the variant 
that goes to the Marine Corps. The Marine Corps made a 
conscious decision to forgo buying the F-18 E/F in order to 
wait for the F-35. So the F-35 variant that has the vertical/
short takeoff and landing capability, which goes to the Marine 
Corps is number two coming off the line.
    The third variant coming off of the line is the Navy 
variant, the carrier-suitable variant.
    Another thing that weighed heavily certainly in my calculus 
was the input of the combatant commanders, and one of the 
highest issues of concern from the combatant commanders is our 
ability to conduct electronic warfare. That electronic warfare 
is carried onboard the F-18. Looking at the lines that we would 
have in hot production, number one priority was to get fifth 
generation fighters to all of the Services. Number two priority 
was to ensure that we had a hot production line in case there 
was a problem, and number three was to have that hot production 
line producing F-18 Gulfs, which support the electronic warfare 
fight.
    Those issues stacked up to a solid position, at least on my 
part, that it was time to terminate the F-22. It is a good 
airplane. It is a fifth generation fighter. But we needed to 
proliferate those fifth generation fighters to all of the 
Services, and we needed to ensure that we were capable of 
continuing to produce aircraft for the electronic warfare 
capability, and that was in the F-18. In the F-18, we can also 
produce front-line fighters that are more than capable of 
addressing any threat that we will face for the next 5 to 10 
years.
    Chairman Levin. Thank you, General.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Again, I want to thank the nominees for their service. You 
both are outstanding examples of service to the Nation, and we 
are very proud to have you serve in positions of great 
responsibility.
    General Cartwright, I would like to return to what I was 
talking about in my opening statement and this Washington Post 
article, where apparently a reporter was in a meeting with 
General Jones and military commanders. During a briefing, 
General Nicholson said he was ``a little light,'' more than 
hinting he could use more forces, probably thousands more. ``We 
don't have enough force to go everywhere,'' Nicholson said.
    Then General Jones basically told him, he said, ``How do 
you think Obama might look at this?'' Jones asked, ``How do you 
think he might feel?''
    Then Jones went on, after all those additional troops, if 
there were new requests for force now, the President would 
quite likely have a ``Whiskey Tango Foxtrot moment.'' Jones 
finally went on to say with great emphasis to the group of Iraq 
veterans, said Afghanistan is not Iraq. ``We are not going to 
build that empire again,'' he said flatly.
    That empire succeeded where the previous strategy had 
failed. I guess my question to you, General Cartwright, and I 
may be asking the wrong person, does General McChrystal have 
the latitude to request additional forces and materiel that he 
may need to prevail in Afghanistan, or is this a clear signal 
to the military that ``we are not going to build that empire 
again''?
    General Cartwright. Senator, let me address it in two ways. 
One, I wasn't in the conversation, but the first would be that 
we have a new commander. We have a strategy that we have just 
stood up. Less than half of the forces associated with that 
strategy have been deployed.
    We are in the midst of building the infrastructure to 
receive them, but most of them, the Marines being the first, 
and they have closed. Next comes the Strykers. But they will 
close toward the end of this summer.
    General McChrystal is doing an assessment right now of the 
force strengths and the capabilities he needs in order to in-
place this new strategy. When he comes back to the Pentagon 
with that assessment, which I would expect will be toward the 
end of this month to middle of August, we will take a look at 
what he has now, what he believes he needs to win this fight--
and that is why we are there is to win this fight--and we will 
look any request associated with increase in forces.
    I will not be bashful about articulating those needs if it 
is appropriate. We will look at that in the context of what has 
deployed and what is yet to come so that we understand the 
difference between his assessment of what he actually has today 
versus what it is we are going to deploy.
    But I think at the heart of your question, no commander 
will be told, at least--if confirmed--by me, to not submit what 
he believes he needs or she believes she needs to win the 
fight.
    Senator McCain. I don't want to belabor it. But he says 
that if there were new requests for force now, the President 
would quite likely have a Whiskey Tango Foxtrot moment. That 
sends a clear message at least to the military in that room, I 
would think. I certainly know that if I were there, I would get 
it.
    I think you would agree, General, the reason why we 
succeeded in this counterinsurgency in Iraq is because we had 
sufficient forces to provide an environment of security, so 
economic, political, and all the other aspects of a free and 
open society could develop. Without the security environment, I 
think we proved in the earlier years in Iraq, it doesn't 
succeed.
    Is there still a pending decision on the part of the 
President that 10,000 additional troops may be needed?
    General Cartwright. The decision on the additional 10,000 
that was made by the previous commander in front of this change 
in strategy was tabled at that time, and we all agreed--we all 
being the commanders--that was appropriate at the time to 
deploy the forces that we really felt we need for the strategy 
we really felt could win.
    Implementing that, we will go back. General McChrystal will 
have the opportunity to look, he won't have to look in the 
context of 10,000. He will look in the context of what he 
believes he needs to win, and he will articulate that. We will 
look at that in the context of what we have yet to deploy in 
the force, and if there are mismatches, either in strategy or 
in force structure, we will articulate those.
    Senator McCain. Thank you.
    Admiral Willard, I would like to talk about North Korea and 
the U.N. Security Council resolution. If a North Korean ship 
vessel like the Kang Nam last month leaves port and is 
delivering illicit weapons to an unfriendly port such as Burma, 
which we believed at the time was the case, what action can the 
United States military take?
    Admiral Willard. Senator, the Security Council Resolution 
1874 provides for member nations to conduct inspections on the 
high seas if the flag nation consents to those inspections 
should we have reason to believe that the ship is carrying 
illicit materials, as you suggest. So it is a consensual search 
that is authorized by the Security Council.
    Senator McCain. If the North Korean ship refuses to grant 
that consent, then what happens?
    Admiral Willard. The flag nation is compelled by the 
security resolution to direct that ship into the next 
convenient port, and the Security Council resolution then calls 
for all nations that might take receipt of that ship in their 
territorial water to conduct the search.
    Senator McCain. If that ship decides to continue on to its 
destination, which may be the port very likely if it is 
carrying illicit weapons to an unfriendly port, do we have any 
way of forcing them to change course, or do they just arrive at 
that port?
    Admiral Willard. The Security Council resolution then calls 
for the flag nation to communicate the failure of that ship to 
adhere to the Security Council resolution call for search, to 
report that back to the Security Council itself. The resolution 
does not authorize nonconsensual search of those ships.
    Senator McCain. I hesitate to ask you what you think the 
likelihood of a North Korean vessel carrying illicit weapons 
would be to either allow boarding or to proceed to a port of 
our choice. It seems to me that it is understandable that the 
U.N. Security Council, given China and Russia's behavior, would 
not enact meaningful sanctions. But I certainly don't view this 
stance in Resolution 1874 as having any impact whatsoever on 
North Korean behavior.
    Admiral, what level of concern should we have about these 
continued tests and launches? Recently, I believe seven short-
range missiles were launched. I have seen pictures recently of 
the Dear Leader, and he looks like he is certainly not in great 
health, as published reports.
    What is your assessment of North Korea's behavior, and do 
you have any thoughts as to what might happen in the next few 
months or years in regards to North Korea?
    Admiral Willard. Senator McCain, I think we are rightly 
concerned about the situation in North Korea. I think it is a 
mystery to me and I think to most who spend a lot of time 
assessing North Korean behavior as to what is behind this 
particular round of provocations by the leadership there. But a 
confluence of events has occurred that may be contributing to 
it.
    His ill health and the issue of succession is certainly 
part of this calculus, perhaps the change in administration in 
South Korea and the relations that have been affected as a 
result of that, the change in our administration, the continued 
association with the Six Party Talks, and the trends that the 
North Koreans were seeing there. So, many things may be 
contributing to this round of provocations and the messages 
that he is perhaps attempting to send.
    As you suggest, they launched a series of short- and 
medium-range ballistic missiles in a demonstration last week 
and, as we are all aware, a Taepodong 2 missile some weeks ago.
    We continue to posture for these and rely on our whole of 
government and the international community to continue to 
attempt to ascertain North Korea's intent, to try and control 
their behavior. In the meantime, we rely on our deterrent level 
of effort on the peninsula with the Republic of Korea 
Government, the deterrence that is affected by our alliance 
with Japan, I think, and our overall posture in the region to 
effectively contain the behavior to within what is tolerable.
    But I think to your point that we should be concerned about 
North Korea and continue to be vigilant in watching over their 
behavior and prepare to defend against a provocation should he 
follow up one of his threats.
    Senator McCain. Thank you very much. Thank you to the 
witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thanks to both of you. You are really extraordinarily well-
qualified for the positions that the President has nominated 
you for. Our country is lucky to have you in service.
    General Cartwright, I know from conversations we have had 
that you share the concerns that I and many members of this 
committee have about the stress on the United States Army as a 
result of its active deployment to Iraq and Afghanistan 
particularly and the impact that has on dwell time, on the 
soldiers, and on their families.
    I am very pleased that our committee, in the mark-up of the 
National Defense Authorization Act for next year, has increased 
the end strength of the Army authorized by 30,000 for 2011 and 
2012. Without going into the details, it was done for those 
years, one forward, for budgetary reasons, even though there is 
no money attached to it.
    It seems to me that with the increased deployments, 
including the possibility of additional deployments to 
Afghanistan as you have just discussed with Senator McCain, and 
the methodical drawdown from Iraq, that the period of great 
pressure on the Army will actually be in 2010. I have been 
contemplating introducing an amendment on the floor when our 
bill comes up next week to include 2010 as a year in which that 
increase of 30,000 from 547,000 to 577,000 can begin.
    As you and I know, the Secretary of Defense has waiver 
authority to nonetheless increase 3 percent those in service in 
the Army. I wanted to ask you how you react to the current 
stress on the Army and whether the Department would view with 
favor the idea of extending this 30,000 increase authority to 
2010 as an amendment to the bill next week?
    General Cartwright. Senator, we have talked a little bit 
about this. The challenge that is introduced is that the 
drawdown in Iraq really starts in 2010 in significant numbers 
and gets us down to around 50,000 to 35,000 around the end of 
August in 2010.
    Senator Lieberman. Right.
    General Cartwright. Assuming that we stay on a glide slope, 
that drawdown is pretty steep. In other words, the forces are 
staying there into 2010 for the majority of those that are 
there.
    The growth in Afghanistan began this year, and so there is 
not a separation of the two. For the Marine Corps, for the most 
part, they disengaged from Iraq and they have moved to 
Afghanistan. The stress is not as significant on the Marines.
    Senator Lieberman. Right.
    General Cartwright. The work that we have done inside the 
Department, particularly with the Army, says there is that 
period of 2010 and 2011 in particular where the stress is going 
to be there. During 2010, because of execution. During 2011, 
because of coming back, refilling, and trying to retrofit, you 
are going to have stress on the Army in a significant way. At 
the same time, the Army is trying to get out of the stop-loss 
construct. All of these things are occurring in 2010 and 2011.
    We have looked at this. We have worked in a range from 
about 15,000 to 30,000. We believe the character of that 
activity should be temporary in nature, very clearly.
    Senator Lieberman. I agree.
    General Cartwright. I believe the Army is on the same sheet 
of music, and so what we are trying to understand is where are 
the resources to do it. But we believe there is a case for 
something between about 15,000 and 25,000. Thirty thousand 
would give us the range in which to work to allow us to do 
that.
    Resourcing is going to be a challenge, but I believe inside 
of the Department that we believe we will find that money if it 
is necessary to find it internally to do that. We would like 
the help probably. But again, we have to make a decision inside 
the Department. We have to work that through. But the case for 
the additional forces is clearly there.
    Senator Lieberman. I really appreciate that answer, and I 
am sure that everybody in the Army and their families 
particularly will appreciate it. I look forward to working with 
you in the next few days to determine whether an amendment to 
the bill to cover 2010 will be helpful to the Department in 
trying to achieve that increase in end strength in a timely 
fashion.
    General Cartwright. Thank you, sir.
    Senator Lieberman. Thank you.
    General, another question, on a very different subject. Our 
committee, in its wisdom, decided to cut the President's 
request for 28 UH-1Y Huey helicopters. I know that the 
recommendation of the President and the Department was based on 
a need to support our marines who are at the front lines in 
Afghanistan because they can operate in the high altitudes and 
hot temperatures there. That is, these Hueys can.
    I want to ask you, because we may be involved on the floor 
again in an attempt to restore funding for that procurement, 
what your response would be, and do you see operational risks 
if we fail to restore that money for the Hueys?
    General Cartwright. Senator, I support the President's 
budget. I believe that those helicopters are, in fact, 
critical. We have had significant press about challenges that 
the forces have had with civilian casualties. Until now, we 
have had ground forces, maneuver forces, but we have not had 
the full complement of supporting arms, particularly in 
artillery and in attack helicopters.
    Bringing combat aviation brigades and bringing in the 
marines who bring in their organic air with them has started to 
fill that in. I would take note of the Marine campaign that is 
currently ongoing that in that campaign, in all the frontage 
that they have covered, we have not had civilian casualties 
because we have had our Cobras and because we have had our 
artillery, and that is important.
    That helicopter for the Marine Corps is their most lethal 
weapon. They are the most effective in the battlefield, 
particularly in the counterinsurgency arena. They are effective 
in built-up urban areas and in compounds because they can be 
discreet. The value of those helicopters is significant.
    Senator Lieberman. I appreciate your answer, and we will 
probably try to act on it next week.
    Now I have a very different question. In your prepared 
responses, General Cartwright, to the questions that the staff 
asked you and the committee did leading up to the hearing, I 
thought you had a quite remarkable statement about what is 
happening in Iran now: ``We are concerned that the growing 
strength of Iran's Islamic Revolutionary Guard Corps (IRGC) 
over Iranian politics will result in the militarization of 
Iranian foreign policy. Nonetheless, we do not project any 
significant changes to Iran's overall foreign policy 
objectives. However, should the political unrest continue, it 
is possible that Iran could attempt to create an incident or 
other crisis that would draw its population's attention away 
from internal strife and towards a perceived common threat.''
    I thought those were very thoughtful comments and very 
important for us to consider, and I want to ask you to just 
comment, extend a little bit on those remarks in two regards. 
One is the extent to which the growing role of the IRGC may 
lead to a militarization of Iranian foreign policy. The second, 
of course, is the extent to which the Iranian Government, 
therefore, may look for an international incident as a way to 
suppress the prominence of the political dissent inside the 
country.
    General Cartwright. Senator, my comments were really based 
on the premise that when confronted with internal unrest, a 
tactic is to look external to a common foe that can be 
portrayed and, therefore, create a uniting activity within the 
country.
    Tied with the activities that we have seen particularly in 
the Gulf now that the IRGC is controlling the waters rather 
than the Iranian navy and that they have shown a proclivity to 
be aggressive in their behavior, that we could find ourselves 
in a generated military incident which would have significant 
overtones in our ability to work any kind of diplomatic 
approach to Iran or any kind of Iranian reach-out to the rest 
of the world.
    That is where I personally am most concerned that our 
opportunity right now in the change of our administrations, in 
the wake of their elections may be short-circuited. I would see 
that as a significantly difficult issue for the region. It 
would create instability within the region.
    Senator Lieberman. I thank you. That is to me a very 
important insight and one I think all of us should keep in 
mind.
    Thank you very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I am looking forward to supporting both of 
you in your confirmations.
    One of the problems that we have, we sit at this table and 
we listen to you guys who are experts and know a lot more about 
it than we do, that from administration to administration 
changes when the circumstances don't always change.
    When you were talking about leading the effort to stop the 
F-22 at the 187, I can remember sitting up here when they were 
talking about 750 F-22s. I remember the number 480. Then there 
was an agreement last year that 243 was the figure that was a 
``must'' figure. I am not asking, just it appears to be that 
way. The same thing is true in the Future Combat Systems (FCS) 
and other platforms, and it is true also in missile defense.
    Now our President said that the need for action, talking 
about North Korea's missile launch, not just here in the U.N. 
Security Council, but in our determination to prevent the 
spread of these weapons. Despite this, they recommended a 
reduction of 16 percent cut in the missile defense budget by 
$1.4 billion. Including some of the systems that we have looked 
at, the airborne laser that we really think is necessary when 
you look at the three phases of capabilities that we want to 
have--the multi-kill vehicle, the ground-based interceptors 
(GBIs).
    Of course, I think you know that goes right back to my 
first statement that you hear these figures, and I can remember 
when it was 54. We had to have 54, and that was going to be the 
one. Then it went down to 44. I know that Senator Begich has an 
amendment to try to restore the 44. I will be supporting him on 
that. I think it is the right thing.
    But with these changes, do you really feel that we are in a 
position to adequately move forward in our missile defense 
system? The technology is there. We are looking at it. We, at 
least I have, sitting at this table here have been convinced 
that we need to have all these in the boost phase, the 
midcourse, and the terminal phase, that we have to have all 
this capability.
    I would like to have each one of you respond. Are you 
really happy with where we are right now, or is that driven 
mostly by budget?
    General Cartwright. Let me go ahead and initiate. It is not 
driven by budget. I think that we would have made these 
decisions with additional resources or without them. For the 
GBI and the midcourse phase, 44 is the number that we currently 
have under contract. The intent is to put 30 of them in the 
ground. Fourteen of them would be used to update configurations 
of missiles in older configurations based on the lessons that 
we have learned in testing thus far.
    Fifteen with the additional radars and systems that we now 
have deployed that have been integrated into the system allows 
us to move from either three or four missiles in the GBI per 
incoming reentry vehicles to two in a construct of shoot-look-
shoot.
    So in a construct of 2, that means that we could take on 
basically 15 simultaneous inbound threats from a rogue nation. 
Neither country that we consider a rogue nation right now, Iran 
and North Korea, have the capability yet demonstrated to launch 
one successful missile towards the United States and reach it, 
number one.
    Number two, the opportunity to get to 15 that would be 
armed and able to come to the United States is several years 
off. So that gives us a point to look at.
    With respect to the GBI, we have two decisions that are yet 
to be made that may drive us to build additional GBIs. The 
first is a decision about the European site, and the second is 
a decision that needs to be made about the testing protocols 
for aging as the system ages out in its life.
    This is testing that you do to ensure that the system is 
still good and valid 5 years down the road, 6 years down the 
road, et cetera.
    The other piece that I would add, and I will close off very 
quickly, Senator, is that the terminal side of this equation 
with THAAD, with PAC-3, and with SM-3 has performed 
significantly better than anybody would have envisioned.
    Senator Inhofe. I understand that. My concern has been in 
the boost phase, but we are running out of time here.
    I did want to get into another area, and that is the age. 
We look at the Bradley fighting vehicle, and we look at the 
Abrams as 1970s technology, and even before, the Paladin, even 
before that, maybe 1950s or World War II technology. General 
Eric Shinseki and others have come in here and talked about our 
ground capabilities and that we need to have a transformation, 
and we have gone through several of these. The last one being, 
of course, FCS, and a lot of that is being terminated.
    We haven't heard, at least I haven't heard, of anything 
really specific about what the next recommendation is going to 
be. I understand in August they are going to come up with 
something. So rather than to answer a question about that, I 
would like you to give me as much information as you can as to 
what we could consider.
    It bothers me, and I have said this before several times, 
that when our guys and gals go out there, there is an 
assumption that they have the best of equipment. In many cases, 
they don't. Certainly in our Paladin capability, there are some 
five countries, including South Africa, that make a better one 
than we have. That is where I want to go with this thing to 
make sure that we have the very best of everything.
    Is there anything you would like to share with us in terms 
of where we are now, General Cartwright, in our modernization 
program concerning that type of capability?
    General Cartwright. I am going back to the FCS and where 
you opened your comment, Senator, but I would tend to agree 
with what I think you have said, which is that the vehicle that 
is of most concern to me for modernization is the Bradley. It 
is aging, and it also is significantly underpowered for the 
task that it has.
    I believe, and I won't foreshadow the Army's analysis, but 
that is where we will focus on FCS initially from a vehicle 
standpoint.
    Senator Inhofe. Thank you very much.
    Admiral, you talked and responded to Senator McCain 
concerning North Korea and some of the capabilities up there. I 
have reason to question our own intelligence in terms of what 
the capability is there. I can remember in 1998, and you 
remember this, too, that we made a request as to when North 
Korea would have this motor stage capability. In fact, it was 
August 24, 1998.
    The response, and I think that was consistent with our 
National Intelligence Estimate, was between 5 and 10 years. 
Seven days later on August 30, they fired one.
    How confident are you in our intelligence on the 
capabilities of North Korea?
    Admiral Willard. Increasingly confident over time. We have 
been looking at this country for 50 years. We pay a lot of 
attention to what goes on in North Korea. To your point, there 
have been miscalculations at times when North Korea has been 
particularly covert in some of their activities.
    I think as illustrated in the most recent launch sequences 
that have occurred, the intelligence associated with those 
launch sequences has been quite good.
    Senator Inhofe. Okay. My time has expired. But for the 
record, I would like to have each of you respond to my three 
favorite programs--the Train and Equip 1206, 1207 International 
Military Education and Training program, and Combatant 
Commander Incentive Fund--as to the value that you see in those 
programs.
    Thank you, Mr. Chairman.
    Admiral Willard. Will do.
    [The information referred to follows:]

    General Cartwright. Building foreign partner capacity is a 
fundamental cornerstone of our security strategy and will remain so for 
decades. Moreover, the focus of our partnership strategy is 
preventative in nature. By helping partners solve problems before they 
become crises we can reduce requirements for major military 
interventions and enhance the security of the United States and that of 
our allies.
    We have made significant progress in this area over the past 
several years, but the U.S. Government must continue to increase its 
efforts to build the capacity of foreign partners to counter terrorism 
and promote stability. Our struggle against violent extremists requires 
that we work with sovereign countries with whom we are not at war. 
Through careful investment, we can help shape the environment to reduce 
requirements for major U.S. interventions and their attendant costs. 
Foreign partners can also leverage knowledge of language, culture, and 
the enemy in ways that U.S. military forces cannot. Use of partner 
forces also denies the enemy the ability to use the specter of major 
U.S. deployments in foreign territory to build ideological support for 
terrorism and as a recruiting tool. Finally, working with partners, we 
can help create layers of offense and defense that are difficult to 
build or sustain unilaterally.
    The programs you have mentioned, 1206/1207/1208, Combatant 
Commander Incentive Fund, and International Military Education and 
Training, are some of the most important tools the U.S. Government has 
to build the capacity of foreign partners. They are flexible, 
responsive, and strategically targeted to get the most leverage on the 
dollar. I hear frequently from each of our combatant commanders just 
how critical and effective these programs are, and how important 
dependable authority and funding is to development and execution of 
theater security cooperation plans.
    These programs are managed collaboratively, by ambassadors and 
combatant commanders, and by the Departments of State and Defense. This 
requirement for joint formulation and approval of programs has 
significantly improved interagency cooperation and effectiveness--
bringing State, U.S. Agency for International Development (USAID), and 
DOD together in applying a strategic ``3D'' lens to country 
assistance--both in the field and in Washington. The different 
perspective each organization brings helps the U.S. Government look at 
country assistance holistically and place country-specific requirements 
in a broader regional and global context.
    Finally, Senator Inhofe, your personal leadership in Congress was 
essential to the creation and continuation of many of these critical 
programs. I want to express my personal thanks, and that of all of our 
combatant commanders, for your leadership. There is no question that we 
have an enduring requirement for these programs and we will greatly 
appreciate your support for them in fiscal year 2010 and beyond.
    Admiral Willard. I believe these programs are critical to our 
strategy of building our partner nations' capacities in order to 
contribute to the overall security and stability in the region. It is 
important to note that these programs are developed in close 
cooperation with our country teams in the region. If confirmed, I would 
continue this process.
    1. International Military Education and Training (IMET) Funding
    I have seen IMET programs work effectively in Indonesia, 
Bangladesh, Malaysia, and India. These programs provide an excellent 
opportunity to train and influence the professional development of 
partner-nation military officers. Specific education and training 
enables their contributions as effective peacekeeping forces, enhances 
their understanding of maritime security and domain awareness, and 
supports defense and acquisition reform.
    An often unheralded benefit from IMET funded military education is 
its long-term effect on personal relationships among foreign officer 
alumni. IMET's participants often go on to assume senior leadership 
positions in their militaries and governments (approximately 40 percent 
of regional Chiefs of Defense and 15 percent of Ministers of Defense 
have participated in IMET courses). In my experience, these leaders are 
universally proud of their IMET experiences and are keenly aware of 
regional counterparts who were their classmates.
    2. 1206 Funding
    1206 funding has been very effective in building partner-nation 
capacity to combat terrorism in Southeast Asia. The most recent 
successes have been in the Tri-Border Region (Malaysia, Indonesia, 
Philippines). The funds are providing training and equipment to enhance 
maritime domain awareness, maritime security, and counterterrorism 
skills. 1206 funding for radars, small boats, radios, and command and 
control enhancements is helping to limit the mobility and operational 
capabilities of violent extremist organizations in the region.
    3. 1207 Funding
    1207 funding in Bangladesh and Sri Lanka has been used to enhance 
community policing and security frameworks to support stabilization and 
reconstruction efforts in addition to ongoing counterterrorism 
activities.
    4. 1208 Funding
    1208 funding continues to enhance special operations support to the 
Armed Forces of the Philippines (AFP) in Operation Enduring Freedom-
Philippines and Joint Special Operations Task Force-Philippines. In 
each case, 1208 funded programs are credited with enabling the AFP to 
more effectively suppress violent extremist organizations in the 
Southern Philippines.
    5. Combatant Commander Incentive Fund (CCIF)
    CCIF funding was an enabler in the highly successful ASEAN Regional 
Forum (ARF) Voluntary Demonstration of Response (VDR) exercise; a 
civilian-led, military-supported project, co-hosted by the U.S. and 
Philippine Governments. The VDR demonstrated the ability of ARF member-
nations to provide humanitarian assistance and respond to natural 
disasters.
    Each of these authorities enables the U.S. Pacific Command to build 
partner capacity in the region. If confirmed, I will continue to 
leverage these various funding authorities to address emerging and 
urgent requirements. I look forward to expanding their application into 
other important partner-nations, such as Cambodia, Maldives, and 
Thailand.
    These programs (IMET, 1206, 1207, 1208, and CCIF) should be made 
permanent and funded through multi-years to provide stability and 
permit long-range planning that will facilitate a more effective and 
strategic approach to addressing regional challenges. The multi-year 
authority provided last year has allowed us to work with our country 
teams in a deliberate planning process instead of hasty end-of-fiscal-
year crisis planning. Single year authorization/funding has resulted in 
missed opportunities and constrained our ability to more effectively 
shape, influence, and address regional challenges.

    Chairman Levin. Thank you, Senator Inhofe.
    By the way, it was entered last night that our bill will be 
first up on the floor on Monday. I think we all know about 
that. But in case any of us don't, we can be ready to go on 
Monday as soon as we come in, which is good news.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to our military leaders and thank 
you and the ranking member for holding this hearing.
    I also want to add my welcome to the families of the 
General and Admiral as well and also to thank both of you for 
the many years of dedicated service you have given to our 
country.
    Admiral Willard, again, thank you for stopping by, and it 
was great to catch up with you. Knowing you out there in the 
Pacific, you have shown outstanding leadership as Commander of 
the U.S. Pacific Fleet in Hawaii, and I want to congratulate 
you and your wife, Donna, on your nomination to become the 
Commander of PACOM.
    Also congratulations to General Cartwright, Sandee, and the 
family as well.
    General, Secretary Gates recently ordered the creation of a 
new military Cyber Command, and I am asking this question 
because of your comment about the fifth generation of weaponry 
and equipment. As DOD stands up this new organization, we must 
provide our troops with resources that they need to defend our 
networks in a timely manner.
    General, in March 2009, you stated, ``The current method of 
procurement for information technology (IT) is so slow that by 
the time software systems are purchased, they are out of 
date.''
    General, what is DOD doing to meet these challenges in the 
timely procurement of IT products?
    General Cartwright. Senator, I appreciate the opportunity 
to respond to that question and to the quote. We have worked 
hard over the last 2 years both on the requirements and the 
acquisition side of the house to speed up and move IT programs 
of record in a fashion that is more appropriate for Moore's Law 
rather than an industrial construct.
    Up until now, we had been using the same process we would 
build an aircraft carrier for to buy 1,000 lines of code, and 
it was just not serving us well. It is not a difference in the 
law. It is a difference in how we approach the risk calculus 
for what it is we are doing and how we manage that risk in the 
acquisition process and the requirements process.
    By adjusting that calculus, particularly with our combat 
support agency, the National Security Agency, we have been able 
to accelerate our ability to buy cutting-edge, competitive 
software and hardware for the IT enterprise that we operate in 
a way that has advantaged the warfighter.
    We are seeing that advantage play out every day in Iraq and 
Afghanistan, what we have been able to do because we have not 
changed the law. We have not even changed the interpretation. 
But what we have done is change the risk calculus that we are 
willing to bear for these IT systems and produce them in a 
timely fashion. I think that has helped us.
    Senator Akaka. General, I am encouraged by the additional 
funding in the defense budget for wounded warrior care. I am 
asking this as chairman of the Veterans' Affairs Committee. I 
have been working on what I am calling a seamless transition, 
and it shows our continued commitment to servicemembers that we 
will take care of them as well as their families, and we need 
to continue this into their civilian life as well.
    How would you assess the approach across the Services to 
care for our wounded, ill, and injured servicemembers and their 
families?
    General Cartwright. We have learned many lessons. We have 
been the benefactor of an incredible amount of leverage that 
was brought to bear by the Veterans Affairs side of the 
equation and the DOD side of the equation partnering to get at 
this issue that you are talking about, a seamless transition.
    I believe our greatest challenge as we move to the future 
has to do with those unseen wounds, so to speak, the wounds of 
stress, the wounds of injury, traumatic to the brain, that we 
still have a significant amount of work to do between our two 
agencies, Veterans Affairs and DOD, to ensure that that 
transition and that care is appropriate and that those who 
suffer these wounds have an opportunity to heal and reenter 
into either the military or the civilian sector in a way that 
is appropriate and commensurate with their abilities.
    Senator Akaka. Thank you.
    Admiral, Hawaii is the only State where U.S. Northern 
Command (NORTHCOM) is not responsible for its homeland 
security. For Hawaii, the responsibility goes to PACOM.
    What is your understanding of PACOM's homeland security 
responsibility and its relationship with NORTHCOM?
    Admiral Willard. Thank you, Senator Akaka.
    As you have already stated, PACOM has homeland defense 
responsibilities for Hawaii, also for our territories 
throughout the Asia-Pacific region. NORTHCOM is, in fact, the 
supported commander for homeland defense to include BMD of the 
mainland United States and Alaska.
    PACOM conducts its defense of Hawaii and defense of 
territories within the region through a coordinated structure 
that is very much married to NORTHCOM and its responsibilities, 
Strategic Command (STRATCOM) and the support that it provides 
globally in that regard, and across all of the components that 
contribute to our homeland defense.
    We have a task force commander assigned in Hawaii for 
purposes of homeland defense. I am confident that the approach 
is the correct one. The relationships, while we continue to 
learn to refine those relationships, are solid and maturing. If 
confirmed, I will look forward to the defense of that region 
and the responsibilities that PACOM bears in that regard.
    Senator Akaka. Thank you very much. My time has expired.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral, General, thank you for your great service to our 
country and your willingness to continue to serve and that of 
your families, who also sacrifice mightily for our freedoms, 
and we appreciate that very much.
    General Cartwright, the Nuclear Posture Review (NPR) is 
ongoing within DOD, and yet this week, we have a commitment on 
additional strategic warhead and delivery vehicle reductions. 
My question is that it appears that we have already determined 
the future of U.S. nuclear posture and in some ways preempted 
the NPR.
    Isn't that putting the cart before the horse? Shouldn't the 
strategy be derived from the NPR and informed by that, as 
opposed to the other way around?
    General Cartwright. Senator, I appreciate the opportunity. 
We prioritized in the NPR and the Quadrennial Defense Review 
(QDR) the activities and the analysis that would be necessary 
to support the timelines associated with the START 
negotiations, or the follow-on START negotiations.
    So the combatant commands, the Joint Staff, OSD, all worked 
very hard at the analysis that gave us ranges that we could 
operate in associated with the structure that would be 
appropriate for those ranges of operationally deployed weapons 
and then the strategically deployed delivery vehicles. I feel 
very comfortable that analysis has served us well.
    What remains in the NPR then is how this all integrates 
with the general purpose forces in things like missile defense, 
cyber, et cetera. But I am very comfortable that we prioritized 
that analysis at the front end in order to support these 
negotiations.
    Senator Thune. Let me ask you about something that was said 
last month in front of the House Foreign Affairs Committee by 
Keith Payne, who is a member of the Congressional Commission on 
the Strategic Posture of the United States. He testified that a 
post-START arms agreement that significantly reduces the number 
of strategic delivery vehicles below 1,600 is good for the 
Russians and bad for the Americans.
    Specifically, he testified that Russian strategic launchers 
will drop from approximately 680 today to about half that 
number simply as a result of aging systems and Russia's slow 
pace of modernization. So that in order to meet the launcher 
reduction commitment, the United States will need to make real 
cuts to existing systems while the Russians need only continue 
down their current path and that the United States will be 
giving up something for nothing in return.
    I have an additional concern that by significantly reducing 
our strategic delivery vehicles, we may lose the bomber leg of 
our nuclear triad. My question is, do you agree with the 
commitment to reduce our strategic delivery vehicles to 
somewhere in the range of 500 to 1,100 systems, and in your 
view, at what point in this range between that 500 and 1,100 
would the delivery vehicle reductions necessitate making our 
nuclear triad into a dyad?
    General Cartwright. Senator, I think there are two pieces 
here. The first is that there are a substantial number of 
delivery vehicles associated with the United States that don't 
deliver anymore. We still count the Peacekeeper silos. We still 
count about 50 of the Minuteman silos that were decommissioned. 
We have a large number of bombers that have been cut up and are 
sitting in Davis-Monthan Air Force Base but are still counted 
against us. The B-1s are still counted against us.
    So part of what we need to do when we have this dialogue is 
to ensure that the assumptions of what we are counting from are 
correct. Our first objective is to get what we are calling the 
shadows out of the calculus so that the number that we are 
talking about is a real number and we all know what they are. 
That is point number one.
    If we did that, that would bring us down substantially in 
what we are credited with having as delivery vehicles. If we go 
down in the range, I believe that the range at which we would 
if we assumed away all the phantoms, then we get down to a 
range somewhere in the 850 to 900 before we would have to start 
to cut any real delivery systems.
    When we get into that range, and that is what drove the 
range is that from about 1,100 down to about 500--500 being 
principally where the Russians would like to be, 1,100 being 
principally where we would like to be--now the negotiation 
starts. I would be very concerned if we got down below those 
levels about mid-point, and I certainly would like to have seen 
those ranges be closer, but that is a negotiation, and we have 
to work our way through that negotiation as we go forward.
    I will certainly express my military best judgment to the 
leadership if we start to get into a range that I would believe 
would endanger prematurely the concept of the triad.
    Senator Thune. You have said in previous testimony, in 
response to a question that I had asked, General, before this 
committee that the Nation does need a new bomber. In your 
opinion, should that new bomber be nuclear capable?
    General Cartwright. The Nation will need a nuclear-capable 
bomber. Whether it is the same as a general purpose force 
activity bomber that we build in the future, whether it is a 
different variant, or whether we use existing platforms like 
the B-2 to carry us further into the future is something the 
analysis will have to tell us.
    But I believe that a strategic range, air-breathing vehicle 
is going to be necessary as far out into the future as I am 
willing to trust my crystal ball.
    Senator Thune. Do you also believe that we ought to retain 
the bomber leg of the triad?
    General Cartwright. I do.
    Senator Thune. Admiral, earlier this year during a hearing 
on current and future worldwide threats, Lieutenant General 
Michael Maples, who is the Director of the DIA, said that 
``China, from an air defense standpoint, has developed a very 
modern, layered air defense capability and depth and is seeking 
additional air defense capabilities that will project even out 
to a range of 400 kilometers. It significantly affects 
potential U.S. operations in that region.''
    In an article published in the Foreign Affairs Journal in 
January 2009, Secretary Gates wrote, ``The Chinese improved air 
defenses, coupled with investments in other asymmetric 
capabilities such as cyber warfare, anti-satellite warfare, and 
anti-ship weaponry, all threaten our ability to project power 
in the Pacific and will require us to rely on long-range, over-
the-horizon systems such as the next-generation bomber.''
    Admiral, my question is, do you agree with Secretary Gates' 
and Lieutenant General Maples' assessment of China's anti-
access capabilities. As the nominee to be combatant commander 
responsible for the Pacific theater, how important is it to you 
that the Air Force field a new long-range bomber in the 2018 
timeframe that is capable of penetrating these advanced 
defenses?
    Admiral Willard. Senator, we lay down our long-range 
bombers today in the theater for their deterrent effect. The 
flexibility of having a long-range bomber capability is very 
important, I think, to the region, particularly given anti-
access capabilities that we see in development there.
    To your point, there will come a time when certainly the 
follow-on bomber will be required. Whether it is 2018, I think, 
will be determined as a result of the analysis ongoing in the 
QDR and the NPR, to General Cartwright's previous statement.
    Senator Thune. Do you agree with the assessment of China's 
anti-access capabilities, though?
    Admiral Willard. I do.
    Senator Thune. Okay. Do you think that bomber, when it is 
fielded, should be nuclear capable?
    Admiral Willard. I do.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you, gentlemen, very much.
    Chairman Levin. Thank you, Senator Thune.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I just wanted to once again thank both of you for your 
service to our country. You are certainly outstanding 
individuals, and I look forward to your confirmation.
    I also want to welcome the families because I think it is 
so important to have the family members standing with you and 
to be here at this hearing.
    General Cartwright, I did have a couple of questions 
concerning what is going on in the Helmand Province right now, 
and I know that the ongoing offensive led by Brigadier General 
Nicholson, who is the Commander of the 2nd Marine Expeditionary 
Brigade from Camp Lejeune, is implementing the Department's 
shift to protect the Afghan civilians.
    Obviously, protecting the Afghan civilians is critical 
because what we don't want to happen is for the Taliban to 
frame our operations as a war against the Afghan Pashtuns, 
which comprise about 42 percent of the Afghani population, 
which is some of the same ethnicity as the Taliban.
    My hope is that the Marines can hold the areas inside the 
Helmand Province long enough for civil-military reconstruction 
efforts to enable the Afghan Government to begin administering 
the basic services there. Can you give me your thoughts on the 
latest NATO and U.S. force offensive currently in the Helmand 
Province?
    General Cartwright. Senator, I think you have framed it 
very well. The intent here is a shift in strategy to a more 
counterinsurgency-type strategy of clear, hold, and then build. 
We have been in the Helmand Province before with Marines and 
other forces and done clearing actions. The challenge is that 
when we finish the clearing actions, we return to our bases and 
the local population takes the brunt of the punishment after we 
leave.
    What is fundamentally different in this campaign is that as 
the Marines move through along with their Afghan counterparts, 
we are leaving forces behind in the villages and the towns to 
protect those villages and towns and hold that area. The hold 
part of this is the key, and the additional force has allowed 
us to do that.
    What we are seeing in response, number one, I had already 
alluded to the fact that our approach here is to win their 
hearts and minds, and we can't do that by having unnecessary 
civilian casualties. We have had very good luck in avoiding 
civilian casualties as we have done the clearing operations 
thus far.
    It doesn't mean that we won't have casualties as we move 
forward. This is going to be a very deadly fight. But the fact 
that we are able to hold has clearly made a difference in the 
village elders, in the residents of those towns.
    I believe personally that one of our key metrics for 
success will be over the next few months to see whether or not 
there is a shift in the attitude of the local residents. If 
they start supporting us with intelligence, with the giving of 
their own sons and daughters in the fight, and that they see 
there is more value in being able to produce crops rather than 
warriors and that they can be sustained in that type of a 
lifestyle, then we will have an opportunity to turn the corner.
    But I think those are key metrics that we have to watch as 
the Marines move into Helmand and followed by the Strykers as 
they move on their flank.
    Senator Hagan. I think one of the key points is the use of 
the civilians, too, in helping them maintain those crops.
    General Cartwright. Right.
    Senator Hagan. I understand that we are slow in getting the 
civilian numbers up and going, and obviously, it has to be 
secure in order to do that. But I believe, too, there are some 
other countries in the region that could perhaps help with that 
aspect of it. Once again, security would be first and foremost.
    Can you give me your thoughts on civilians and utilizing 
civilians in some of the other neighboring countries?
    General Cartwright. In the hold, the quicker that we can 
transition to some sort of a livelihood and stability that 
gives the local residents the opportunity to make a living and 
be advantaged by the conditions is key.
    Our ability to bring civilians in and surge those civilians 
from the United States, from various organizations, the 
agriculture side, from the land grant colleges and things like 
that, right now has not moved at a pace that probably we would 
like it to. We would like to see them move faster, but we are 
working as hard as we can with our partners in the Department 
of State to make that happen.
    But I do believe also that particularly from the 
agriculture side of the house, local soil, local customs, how 
you graze, how you raise crops, et cetera, how you move them to 
market, the neighbors to Afghanistan have incredible expertise 
in that area and apparently, in my discussions at least, are 
very willing to give that expertise and to mentor and to bring 
in some of that agribusiness-type expertise that is unique to 
the area. I think we have to take advantage of that.
    Senator Hagan. Any idea how we are going to begin that 
process?
    General Cartwright. We are going to reach out and start a 
dialogue as quickly as we can. What we are trying to understand 
from the military standpoint is how quickly we are going to be 
able to get a hold phase, but we don't want a gap after that 
hold phase. This has to be something that happens very quickly.
    Senator Hagan. Thank you.
    Admiral Willard, I have a question on China. China has 
terminated the military-to-military interaction with the United 
States due to the weapon sales that we have authorized to 
Taiwan after the Olympics. As the commander in that region, how 
do you plan on interacting with China to accomplish mutual 
objectives given the communication constraints, and what types 
of multilateral defense symposiums will you be able to attend 
that will assist in bridging this effort?
    Admiral Willard. Thank you, Senator Hagan.
    The military-to-military dialogue with China has just in 
recent weeks recommenced, beginning with an international fleet 
review that was held in China. It is measured steps clearly, 
but we are seeking to improve the military-to-military 
engagement over time.
    As you point out, China in the past has suspended military-
to-military discussions, and they will have a vote in the 
future as well. I think it is incumbent, first, on both nations 
to realize the value, the benefit of military-to-military 
dialogue and to sustain it. I think that, for China, is going 
to be an evolutionary process in itself.
    I think everyone collectively desires to see China emerge 
as a constructive partner and a constructive partner in 
regional security certainly. We think that the military-to-
military dialogue to discuss the areas of common interest that 
we have with China, as well as to discuss the areas in which we 
disagree, is an important venue against all the diplomatic and 
other efforts that our Nation currently has invested in China 
as a nation.
    If confirmed, I will look forward to seeking to determine 
new venues in which to engage the Chinese military. To your 
question regarding the conferences and so forth, there are a 
myriad of conferences in which the United States and China 
collectively attend.
    I have had opportunities in the Western Pacific Naval 
Symposium, in larger conference settings in Singapore and so 
forth to engage with my Chinese counterparts on occasion. We 
have pretty consistently visited one another as well. I look 
forward to all the opportunities that present themselves.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    Thank you, both of you, for your willingness to serve and 
obviously to your families that will be with you and serving 
with you in their own way. Thank you very much for your 
willingness.
    I have a couple of questions. They will be a little varied. 
I am going to follow up on a little bit of Senator Hagan's 
comments here in just a minute. General, you had commented in 
regards to Senator Inhofe's questions regarding missile 
defense, and one of the comments you had mentioned was the 
ratio of 2 for every 1, 15 all at once type of shot effort.
    Can you tell me is it that assuming that all 30 missiles 
are in place, that all 30 are operational at all times? Because 
the ratio bases that on that assumption, and I am not sure that 
is the right assumption, but maybe you could add to that?
    General Cartwright. Senator, what we are endeavoring to do, 
again, we have 44 missiles under contract. The first priority 
for the 14 above the 30 is to bring the 30 that are in the 
ground to a common configuration that represents the knowledge 
that we have gained from all of the testing. Then the intent 
would be to keep 30 in the ground.
    Now we will do maintenance on those assets. So on any given 
day, likely there are not 30 in battery. But with any kind of 
warning, we would bring 30 up to speed and be ready based on 
the threat that we assessed had been detected.
    Senator Begich. Okay. In the best condition with the 
warning, there would be 30 available. In a shoot-look-shoot 
scenario, that would give you the ability to counter just with 
the midcourse 15 simultaneous launches. It is at that point 
that we start to say now when you are dealing with 15 
simultaneous launches, are you dealing with a rogue threat 
anymore? There is a policy discussion that needs to occur if 
the belief is that the system should be developed beyond what 
we would call a rogue state capability.
    Senator Begich. In your document or the work you are doing 
now, I know there is the ballistic missile study that is going 
on, part of that study is that question, to some extent?
    General Cartwright. It is to some extent. It is also in the 
sufficiency side of the equation, what is appropriate for 
regional defenses, how many weapons do we need there against 
what threats and in what configuration, and how much of that 
feeds the defense of the Homeland?
    One of the keys that we are looking at in this assessment 
is we have in the technology side, on what we could call the 
test and modeling side of the house, demonstrated a capability 
particularly for the SM-3 missile to be able to intercept in 
the ascent phase.
    If we bring that to bear, then what is the right balance 
across all three phases for both Homeland and for regional 
defenses? That is what we will be asking in the BMD review is 
do we have that equation right?
    Senator Begich. You made a comment, I want you to expand on 
it; and you made a comment, it also depends on what happens 
with the European sites.
    General Cartwright. Yes.
    Senator Begich. Can you expand a little bit and what you 
mean by that?
    General Cartwright. There are two priorities that we have 
set for the European site. One is a regional defense capability 
to protect the nations, and the second is a redundant 
capability that would assist in protecting the United States or 
the Homeland.
    We have, I think, upwards right now of 40 different 
architectural laydowns that we believe in some measure would 
address both the Homeland issue and the regional issue. The 
question is which of those make the most sense?
    You are looking at Homeland. You are looking at regional. 
You are also looking at stability in the region. You run those 
three metrics against these alternatives and start to narrow in 
on what kind of an architecture best suits the defense of the 
region, the defense of the Homeland, and the regional 
stability.
    Senator Begich. Very good. How do you define testing, and 
let me stick to the long range if I can. How do you define what 
is the proper type of testing that should occur with the long-
range system?
    General Cartwright. Right. We have nominally now, if we 
stay with the 44 number, 14 missiles that are available to 
test, both the aerodynamic or performance margins of the 
missile so we know what exactly it does. Also to test the 
interceptor itself and its ability to discriminate, the sensor 
grid, and then the command and control.
    There are three elements. There is the weapon and the 
delivery system, there is the sensor grid, and there is the 
command and control. In order to start to test that against 
situations in the extreme like 15 simultaneous launches, we are 
going to have to go and do some testing that we haven't done, 
which is multi-shot engagements against or simultaneous shot 
engagements against multiple targets. That testing needs to be 
done.
    Senator Begich. If I can interrupt for a second? Do you 
consider that live testing, not virtual?
    General Cartwright. That is correct. We will do both.
    Senator Begich. You will do both.
    General Cartwright. But the missiles are for the live 
testing.
    The second is that the age life of these missiles--let us 
just nominally say it is 25 years. Over that period, in order 
to be confident of that number, we need to do what is called 
age testing. Each year, we will sample out of a missile that is 
in a silo, take it, bring it to a test facility and fire it 
live, and ensure that it can, in fact, do what it is supposed 
to do.
    There is going to need to be a population of missiles to 
support that. Part of the review that we are doing this year is 
to determine what that sampling quantity needs to be, and we 
will have to provide those missiles.
    So you have two unknown variables. What is the 
configuration of the European capability, and what is the 
number of missiles associated with both the current testing and 
the future aging testing that we will need in order to perform 
through the entire life of the missile system?
    Senator Begich. In our authorization bill that will be up 
Monday, we have some language in there specifically talking 
about a testing plan. I don't know if you have had a chance to 
look at that language, but the idea was some of this discussion 
we are having now is to formalize it so we have a better 
understanding of the law, how this testing will occur, what 
will be the impact, and do you feel comfortable in developing a 
plan that can be shared with this committee maybe in this forum 
or another forum?
    General Cartwright. Yes, sir.
    Senator Begich. Okay. This question you may not want to 
answer, but let me now shift if I can real quick because it was 
an interesting statement you made, and that is we are there to 
win and be successful.
    This is the question. How do you define in Afghanistan--
that is what I am focused on right now, a win in Afghanistan? I 
know that is a difficult question because a lot of aspects, and 
Senator Hagan, Senator Udall, and a few of us just came back 
from the Afghanistan region. Just how do you define a win?
    General Cartwright. The lack of presence of ungoverned and 
unmanaged WMD should they exist, that they have to be 
eliminated or put under control. In this case, there are no 
weapons.
    Senator Begich. There are none. Correct.
    General Cartwright. The absence and the control of 
terrorists who would export their terrorism globally. Then the 
presence of a governance system that could discover and deter 
the first two.
    Senator Begich. Admiral, we had a great conversation 
yesterday. I appreciate all your commentary yesterday with me.
    My last question, if you could have a crystal ball in 
Afghanistan, based on the resource allocation that you now are 
seeing move in there, what you have heard a little bit today on 
some of the concerns or issues we have on resource allocation, 
how would you measure that in time?
    General Cartwright. I think that there is a subjective side 
of this. The enemy clearly has a vote in this activity. The 
first two I believe that we have reasonably under control. 
Governance gives us the opportunity to put in place a structure 
that would control either the reemergence of terrorists or the 
potential for WMD.
    The question then is how much can we do to bolster this 
government and give it the opportunity to provide basic 
services, justice, and rule of law in a construct that would 
advantage the country and at the same time protect its 
neighbors and the rest of the globe from any kind of 
reemergence of terrorism?
    It is a subjective judgment. I believe that whatever 
government comes out of Afghanistan as we move forward with 
success, it will probably not look like our government. They 
have thousands of years of a type of government that is 
associated with the tribes and with the clans. But if they can 
come to some mesh between the local governance and the central 
governance in a way that allows them to move forward and 
provide services, that that will be our vision of success.
    Senator Begich. Thank you very much, Mr. Chairman.
    Thank you both.
    Chairman Levin. Thank you, Senator Begich.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, I had the opportunity to visit with both of you. 
Thank you for your continued service. Thank you for your 
leadership.
    General Cartwright, I noted that earlier today, you had 
some comments relative to the F-22, which are not new. Your 
opinion on this has been out there for some time. But I note 
that it is not in accord with what we are hearing from a number 
of other folks within the military.
    Can you tell me, in your opinion, what is the military 
requirement for the number of F-22s that are called for?
    General Cartwright. The military requirement right now is 
associated with the strategy that we are laying out in the QDR, 
and it is a departure from the two major theater war (MTW) 
construct that we have adhered to in the past and in which this 
aircraft grew up. It grew up in that construct of two MTWs, and 
both of them being of a peer competitor quality.
    The strategy that we are moving towards is one that is 
acknowledging of the fact that we are not in that type of 
conflict, that the more likely conflicts are going to be 
similar to the ones that we are in in Iraq and Afghanistan, but 
that we do need to have a capability against a major peer 
competitor and that we believe that the sizing construct 
demands that we have fifth generation fighters across all three 
Services rather than just one and that the number of those 
fighters probably does not need to be sufficient to take on two 
simultaneous peer competitors, that we don't see that as the 
likely. We see that as the extreme.
    Senator Chambliss. What is the military requirement for the 
number of F-22s?
    General Cartwright. The military requirement is 187.
    Senator Chambliss. Now you realize that is contrary to the 
opinion of the Chief of Staff of the Air Force, General Norton 
Schwartz?
    General Cartwright. I do not realize that. He has sat down 
in several meetings with me, certainly in the tank with the 
chiefs. That has been the number that he has espoused.
    Senator Chambliss. General, I just have to tell you it is 
in writing. It is on the record in this committee, as well as 
public statements in news conferences and speeches by General 
Schwartz, that the military requirement is 243.
    You realize that your statement at 187 is contrary to the 
written statement and the opinion of the Chief of Air Combat 
Command, General John Corley?
    General Cartwright. I realize that General Corley, General 
Schwartz, and I have spoken about that, was speaking in terms 
of the two MTW construct.
    Senator Chambliss. You realize that there is also a 
difference of opinion between the head of the National Guard, 
General Harry Wyatt, and you with respect to the number that 
are needed?
    General Cartwright. I do, after reading his comments in the 
paper today.
    Senator Chambliss. You also, I am sure, are aware the 
General Richard Hawley, a former Commander of Air Combat 
Command, says that not only are 243 needed, but 381 is the 
military requirement. Is that correct? Do you understand that?
    General Cartwright. I understand that, and I am providing 
you with my best military advice.
    Senator Chambliss. My point is that there is obviously 
disagreement in the military about what this number ought to 
be. Now every one of the individuals I mentioned--General 
Schwartz, General Corley, General Wyatt, General Hawley--base 
their opinion on studies that have been done. As you and I well 
know, there are any number of studies that have been done over 
the years.
    They base their opinion based on studies that have been 
done. Can you tell me one study that has been done that says 
that the military requirement is 187?
    General Cartwright. We just finished an Air Force study 
that brings it in at the 187 level. But it does not look in 
isolation at a single aircraft.
    Senator Chambliss. Has that been published?
    General Cartwright. It looks at the fleet of aircraft and 
our capability in addition to aircraft, to all of the other 
capabilities that the military brings forward.
    Senator Chambliss. Has that study been published?
    General Cartwright. Let me find out and provide it to you 
if it has not been provided.
    [The information referred to follows:]

    This report is a joint staff report that is classified and is 
retained in committee files.
    There is no Air Force-only study that I'm aware of that determines 
187 F-22s are sufficient to meet the national military strategy.

        <bullet> All the Services, including the Air Force, 
        participated in the Joint Staff-led Operational Availability-08 
        (OA-08) assessment.
        <bullet> OA-08 was conducted from the spring of 2007 through 
        May 2008.
        <bullet> The purpose of OA-08 was to assess the sufficiency of 
        the Joint Force to execute operational constructs articulated 
        in the national defense strategy, and to assess how best to 
        apply the current planned force against a range of scenarios. 
        OA-08 was not primarily a force sizing study intended to 
        determine the required force size to execute the national 
        military strategy.
        <bullet> While OA-08 did conclude that 187 F-22s were 
        sufficient, OA-08 also included assumptions that, if incorrect, 
        could change the outcome related to the number of F-22s 
        required.

    Senator Chambliss. Okay. But that Air Force study would be 
contrary to the opinion of the Chief of Staff of the Air Force 
if that is the case.
    In your news conference that you held back on April 7, you 
talked about movement toward unmanned aerial vehicles (UAVs), 
which I agree with. I think the UAV, the Predator, and its 
counterparts are needed. We need to provide more of those. Is 
there any UAV in production today that has stealth capability?
    General Cartwright. I think that we would have to take that 
to a different forum, Senator.
    Senator Chambliss. Okay. Is there a UAV that has the 
capability of penetrating any theater where the sophisticated 
surface-to-air missiles that are in the hands of any number of 
countries around the world today?
    General Cartwright. I think we would have to take that to a 
classified forum, sir.
    Senator Chambliss. Okay. Does the F-22 have that 
capability?
    General Cartwright. It does, sir.
    Senator Chambliss. You also talk about that we need to move 
more quickly to the F-35. You mentioned the fact that in that 
April 7th news conference that the F-35 has had its problems 
and has been expensive. My understanding is that most of those 
problems are behind us at this point.
    But you go on to say that with the F-35s that we are going 
to buy ahead of the final tests being concluded, that we are 
going to have to retrofit the F-35, and that is pretty common, 
is it not, to have to retrofit a weapon system as different 
capabilities are found and different problems are found?
    General Cartwright. I believe over half of the F-22 
aircraft will have to be retrofitted.
    Senator Chambliss. That is not unusual. If we did it with 
the F-15, the F-16, and we will have to do it with the F-35. 
Now how expensive is that F-35 going to be per copy?
    General Cartwright. I would have to go back and get you 
exact numbers. I wouldn't want to give you a swag, sir. Let me 
provide that to you.
    [The information referred to follows:]

    The average unit flyaway cost for an F-35A aircraft, based on total 
procurement of 1,763 aircraft, is $85 million (TY$).

    Senator Chambliss. Okay. Can you tell us also, and you may 
have to look this up, but how expensive is that F-35 going to 
be once it is retrofitted?
    General Cartwright. That would be a harder question because 
we don't know what issues we will find in fielding and test.
    Senator Chambliss. Again, you make my point, General. We 
have a known quantity with the F-22. If you just divide the 
number of F-35s that we are going to procure by the dollars 
that have been requested by the Pentagon, the cost of the 
current F-35 is comparable to the cost of a current F-22.
    We have a known quantity. We know that its capabilities are 
greater than the F-35, and it is a little mystifying to me why 
there seems to be continued opposition coming out of the 
Pentagon.
    But I thank you for your comments, and again thank both of 
you for your service.
    General Cartwright. Thank you, Senator.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you to both of you for your service and to your 
families for being here. We appreciate very much your continued 
service in new positions. I look forward to your confirmations.
    General Cartwright, in response to the advance policy 
questions, you stated that one of the three challenges you 
would face and a continued priority as the Vice Chief is the 
emergence of cyber threats against private citizens, the 
commercial sector, and national security. You stated that in 
addressing this challenge, you would support the standup of the 
recently announced Cyber Command and the development of 
capabilities and protocols necessary to defend the Nation's 
interests and protect the rights that define our way of life 
under the Constitution.
    Can you speak to the support that will be necessary for you 
to provide to STRATCOM in standing up this subunified command 
and how you can help and what kind of support would be 
necessary to encourage STRATCOM's role in addressing and 
developing the capabilities that are required in this 
subcommand.
    General Cartwright. Senator, as you say, in the command 
relationship, STRATCOM is the combatant command responsible for 
cyber. They will have a subunified command, which we are 
calling right now Cyber Command, that will be responsible for 
the day-to-day work associated with cyber in all the areas that 
you just highlighted.
    Senator Ben Nelson. Both offensive and defensive?
    General Cartwright. Both offensive and defensive and will 
support STRATCOM, who will then integrate that capability 
across the broad range of capabilities of both the general 
purpose and strategic forces.
    STRATCOM's role is still very significant in this activity, 
but what we have now is somebody who is dedicated with all of 
the resources, the intelligence, the linguists, the technical 
expertise, and intellectual capital and equipment to be able to 
wage this war at the strategic level, at the operational level, 
and at the tactical level.
    That war is the defense of our networks both from a 
standpoint of national security and from a standpoint of our 
ability to do business, which is at the heart of what this 
cyber capability brings to this Nation, a global reach for its 
business and its engagement.
    We have, through the auspices of STRATCOM, now 
significantly expanded the basic training for each of the 
Services so that we can get what we will call cyber warriors 
into the system and start to grow them. We have expanded the 
schools at the technical level, the senior levels. In other 
words, we have done significant work in the structure of what 
it will take to support each of the combatant commands and what 
will have to be forward staged and what will have to be held 
back and how those forces get presented by each of the Service 
cyber commands.
    All of that work is ongoing. The next due-out that we have 
is really from STRATCOM, which is an integrated roadmap of how 
this command will go to its initial operating capability and 
then to its final operating capability, the resources necessary 
and the capabilities that they must demonstrate before we are 
comfortable that they are ready to reach those stages. That is 
the next due-out.
    Senator Ben Nelson. Those resources will be made available? 
Because it is one thing to give the responsibility, another 
thing to give it with the resources in order to be able to 
achieve it.
    General Cartwright. Senator, if confirmed, I will work my 
best at that issue.
    Senator Ben Nelson. In that regard, and as a former 
Commander of STRATCOM, in setting up a global command or going 
beyond a subunified command to a combatant command, if cyber is 
pulled from STRATCOM, how will the mission be integrated so 
that the two combatant commands are able to structurally work 
together?
    General Cartwright. Senator, and you know this from my time 
at STRATCOM, but at each step of the way with this cyber 
capability that we are trying to build to defend the Nation, 
from its inception, we started--and there were those who wanted 
a stand-alone combatant command, some that wanted a subunified. 
We started with a functional component because we needed to 
crawl a little bit.
    We are now moving to a subunified command, and it is 
because we believe we have matured in our understanding of what 
it is we need to be able to do. There is still more work to be 
done in that area.
    My personal opinion on this is that a stand-alone, 
functional command that would be cyber only has the potential 
like what I believe was a challenge for Space Command, that it 
would become disconnected from the warfighter and then would 
not be as readily integrated into the warfight and the scheme 
of maneuver and planning. My position has been that I believe, 
at least until something fundamentally changes, it is most 
appropriate for this command to be at the subunified level and 
that STRATCOM offers us the venue to integrate it with general 
purpose forces.
    Senator Ben Nelson. I appreciate your thoughts in that 
regard. Without your background, I still share your 
conclusions.
    Admiral, we spoke recently, and I appreciate very much your 
having come in. The concerns that I have right now with North 
Korea are obvious because of the same concerns we all share. We 
have also concluded that perhaps the best pressure point on 
North Korea can come from China, diplomatic and otherwise, to 
deal with North Korea's interests in continuing to terrorize 
the neighborhood and threaten globally.
    In connection with what is going on in China today with the 
Uighurs and the turmoil and unrest that even brought President 
Hu Jintao back to China to try to provide leadership there, is 
China distracted to the point where we can't get their 
attention, in your opinion, to deal with North Korea now 
because they can't handle two issues at once?
    That is sometimes very distracting to anyone. But it is 
particularly distracting to them right now. It is a tough 
question.
    Admiral Willard. Yes, it is. I can't account for President 
Hu and his ability to multitask. I think that China is a very 
complex country. Obviously, they have a great deal of influence 
that is growing regionally and internationally, and at the same 
time, they have internal pressures that are extraordinary, as 
illustrated in their most recent crisis internally.
    We certainly see the need to leverage China, their 
leadership, their government in terms of influencing North 
Korea. In the past, they have at times demonstrated that, more 
or less.
    We believe that right now we are in a period where North 
Korea's provocations, as you suggest, are not in the region's 
interest, nor are they in the People's Republic of China's 
(PRC) interest. We believe that we are in a period of 
opportunity now where Chinese leadership can and should exert 
their influence, to the extent that they have it, over North 
Korean leadership in order to bring the current situation of 
provocations under control.
    Senator Ben Nelson. The Dear Leader is behaving like a 
young tot without the benefit of having a babysitter nearby. 
One would hope that the PRC would focus on this and recognize 
that it is a threat not only to the near region, but on a 
broader basis in an intercontinental capacity as well.
    I would hope that we could get their attention and have it 
focused on that, and I hope in your new command, that will be 
part of what you can express in terms with the relationship 
that you will develop with the Chinese military. We can perhaps 
deal with it as well at the State Department level, but I think 
the military certainly needs to be brought into the picture as 
well.
    Admiral Willard. If confirmed, I look forward to sharing 
those views. Thank you, Senator.
    Senator Ben Nelson. Thanks to both of you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    I just have a few additional questions.
    Admiral, one of the most important missions assigned to the 
Department is the responsibility to recover missing 
servicemembers and to identify the remains that are recovered, 
and the principal agency involved in recovering and identifying 
those remains is the Joint Prisoners of War/Missing in Action 
Accounting Command (JPAC), which is under the parent command of 
PACOM.
    You indicated, I believe, in your answers that one of the 
recurring challenges for JPAC is the shortage of scientific 
personnel to increase the number of identifications of remains 
that have already been recovered. I am wondering if you could 
just briefly comment on that and whether you would support 
increasing the number of scientific personnel and whether that 
can be done fairly easily? Is that just a matter of resources, 
or are there other problems?
    Admiral Willard. Thank you, sir.
    There is a backlog, as you are aware, in terms of the 
scientific effort that is ongoing to identify remains that JPAC 
has, in fact, collected over time. It is currently our most 
advanced scientific endeavor, I believe, in the world in regard 
to identifying remains such as they are in their work.
    I think resourcing is part of this answer. I think being 
able to access that level of scientific expertise and the 
availability of scientists of that caliber to perform this 
nature of work is the other dimension. If confirmed, I will 
look forward to understanding fully the resourcing requirements 
for JPAC in order that they can advance this capability as far 
as we possibly can as a Nation and ensure that both our 
resourcing is communicated correctly, as well as the needs to 
be able to access the type of expertise that is so unique to 
this organization.
    Chairman Levin. Okay. Thank you.
    Of course, we would invite you to let the committee know of 
any shortfalls that we can make up for.
    Admiral Willard. Yes, sir. I would be happy to.
    Chairman Levin. General, back to the F-22 for a moment. You 
have given us your view in terms of the requirement. Is your 
view shared by the Joint Chiefs?
    General Cartwright. It is, sir.
    Chairman Levin. Was that issue the subject of significant 
discussion by the Joint Chiefs?
    General Cartwright. It was. In the tank, we have gone 
through this several times.
    Chairman Levin. You are going to make available the study 
that you made reference to, to the full committee. There was a 
second study that I referred to, I believe?
    General Cartwright. I think the one I referred to just now 
is the Air Force study, and we will get that.
    Chairman Levin. There was a second study that I can't 
remember the exact name of, but----
    General Cartwright. We will work with you to get it.
    Chairman Levin. The Joint Staff study? I think it was a 
Joint Staff study. If you could also make that available to us? 
Do we already have that study? I don't think we have that. If 
you could dig that out for us, we would appreciate that as 
well.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. General, on Monday, the Washington Post 
referred to an analysis of missile defense options for Europe, 
and that analysis was written by a Stanford physicist named 
Dean Wilkening. The article said that in his analysis, which 
had been provided to the administration, there are a number of 
options for missile defense in Europe that might provide a 
better missile defense, better defensive coverage of Europe 
against a potential long-range Iranian missile than the 
proposed deployment of a system in Poland and the Czech 
Republic.
    Are you familiar with that study?
    General Cartwright. I am not familiar with that study, but 
I am familiar with a range of options that we believe have the 
potential to be more effective. As I said earlier, the key here 
is to find the best options that give us both the regional 
defense and the defense of the Homeland.
    Chairman Levin. In looking at that, are we keeping all of 
our options open? Are we looking at all of the available 
possibilities?
    General Cartwright. Yes, sir. I think we are in the 
neighborhood, as I said, of over 40 options right now that we 
are starting to narrow down on.
    Chairman Levin. General, Senator Lieberman and 14 members 
of this committee, including myself, wrote the President in 
May, urging him to declare higher end strength target levels 
for the Afghan National Army and the Afghan National Police 
than the current target of 134,000 soldiers and 82,000 police 
personnel.
    I understand that the Afghan police target has now been 
raised, but that the level--I particularly focus on the army--
remains inadequate in terms of what I think most people believe 
the needs are going to be in Afghanistan for Afghan troops. I 
don't know why General Jones made the comment he did. That has 
already been explored. But I want to focus on the size of the 
Afghan army.
    We had a brigadier general by the name of Larry Jacobson, 
who said the other day that the fact of the matter is we don't 
have enough Afghan forces and that we need more or he would 
like more is his exact word in Helmand Province.
    Is this a subject of major consideration and deliberation 
among the chiefs?
    General Cartwright. It is, Senator. I think we all believe 
that there needs to be more Afghan forces, in particular Afghan 
National Army capability. We also believe, based on the 
assessments that we have done thus far, that there is the 
capacity to recruit and train more, particularly as we add the 
4th of the 82nd to help us in the training throughput.
    We have combined a current assessment that is ongoing of 
the Afghan national security force writ large with General 
McChrystal's assessment. We expect that assessment to come in 
at the same time that General McChrystal delivers his 
assessment.
    Chairman Levin. The McChrystal assessment is on our troop 
level and the Afghan national troop level?
    General Cartwright. Yes, sir. We have asked them to be 
combined.
    Chairman Levin. All right. We have heard different 
arguments or positions about why we can't move faster. We have 
heard that the problem is the shortfall of Afghan leadership in 
the army. It is the training of those leaders. We have heard 
there are not enough mentors there yet. We have heard there is 
an equipment issue.
    But I think everybody agrees that you have in the Afghan 
army a motivated army. They are motivated against the enemy and 
are willing to undertake their own lives and put their own 
lives on the line.
    This is not a question of a lack of motivation on the part 
of the Afghans. We are all very anxious to do whatever we can 
to prod this issue along.
    General Cartwright. I think you are right, Senator. One 
thing we are not going to have to teach them how to do is 
fight. But we are going to have to work on command, control, 
organization, and leadership. Building the noncommissioned 
officer cadre, building the officer cadre is going to be part 
of the work, and we believe adding the 4th of the 82nd out 
there to do that work is going to help us get the throughput.
    Chairman Levin. Finally, just one question about Pakistan. 
I think that in terms of recent events that the Pakistan army 
is showing a much greater willingness to take on the enemy for 
their own sake, not because we are asking them or we are paying 
them, but because from their national security perspective, it 
is in their interest.
    I don't know how much that has been transmitted to the 
Pakistan people. I know it is transmitted through interviews in 
the London papers, but that is not the same as the president 
and the head of the army in Pakistan transmitting that to the 
Pakistani people themselves. I am trying to find out the degree 
to which the statements that they have made recently reflect 
that or are made publicly in Pakistan.
    But another thing which has troubled me is that we are 
constantly criticized for the attacks by our UAVs inside 
Pakistan. Yesterday or the day before, we got a number of very 
high-level targets. There were civilian casualties, which 
obviously are to be minimized and regretted.
    But when we knock out high-level targets, terrorist 
targets, Taliban targets that are out to destroy the Government 
of Pakistan, the least we can expect, I believe, from the 
Pakistan Government is silence. They politically don't have it 
inside themselves to tell the Pakistan people why we are doing 
it and that they are aware of it. They don't have that kind of 
political steel in their backbone. I have been in politics long 
enough to understand that. I don't condone it. I don't like it. 
But I at least can understand.
    What I can't understand and do not accept is the attacks on 
us, the criticism of us, because what that does is undermine 
the effort. They are creating, not us, every time they attack 
us as being foreign occupiers--or not occupiers, but foreigners 
attacking their sovereign soil, they are creating another 
generation that are after us instead of after the terrorists.
    I just want to let you know I would welcome any comment 
that you might have. I want to let you know because you will 
have contacts with the Pakistani leadership. I have expressed 
this directly to their President, to the Chief of Staff of the 
Army. It affects my own view as to whether we should be 
providing support to Pakistan.
    I am willing to support the Pakistan Government and to try 
to get them some economic wherewithal to address all the issues 
they have so that they are the ones that are supporting their 
people's needs. I am for providing that.
    I believe that they have the same goal we do, at least 
their recent actions suggest they do, which is that it is in 
their security interest to go after the fanatics and the 
terrorists. I got that, and if that is real and is sustained, 
that is somewhat reassuring.
    But what I don't have yet is assurance that their 
statements publicly, their rhetoric about the need for them to 
go after the terrorists serves their national interest. I am 
not sure that is done internally yet in terms of their 
rhetoric, and I sure as heck deeply object to their criticism 
of us for using attacks by UAVs, which they obviously 
acquiesce, condone, and accept or else we wouldn't be doing 
them.
    I know we also have a vote on, and I don't want to cut 
short an answer if you are just dying to give us an answer on 
this. [Laughter.]
    But I don't need an answer. I would welcome it if you feel 
that you want to. But I just want to express that to you.
    General Cartwright. I think just one short comment, 
Senator, because I think you have captured the issue.
    Inside the military, our ability to work with our 
counterparts, at my level, I know my counterparts from school. 
But our lieutenant colonels, majors, and captains don't because 
we had that hiatus. So, bringing them back into our schools and 
building trust, which is what we are trying to do, will help 
us, I think, in the perception management here of what our role 
could be to assist them.
    Every nation is proud, and I understand that, but every 
nation also can use friends. We have to work on this some way, 
but we also have to have the help of their central government 
to do that. They can undermine this in a way that is very 
damaging to both sides if we are not careful.
    Chairman Levin. General, Admiral, thank you for your 
service. Thank you for being here today. Thank your families 
for us, those who are here within earshot and those who aren't. 
Good luck to your son-in-law getting home.
    General Cartwright. Thank you.
    Chairman Levin. When is he due?
    General Cartwright. Hopefully in the next 2 weeks.
    Chairman Levin. Two weeks. We know how much you are looking 
forward to it. You can embrace him for all of us.
    General Cartwright. Thank you, sir.
    Chairman Levin. Thank you both.
    Admiral Willard. Thank you, Mr. Chairman.
    Chairman Levin. The hearing is adjourned.
    [Whereupon, at 11:39 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. James E. Cartwright, 
USMC, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. On two previous occasions you have answered the 
committee's policy questions on the reforms brought about by the 
Goldwater-Nichols action, the last time being in connection with your 
first nomination to be Vice Chairman of the Joint Chiefs of Staff.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing?
    Answer. No. The Goldwater-Nichols reforms have clearly strengthened 
the warfighting and operational capabilities of our combatant commands 
(COCOMs) and our Nation.
    Question. In your previous response to a question concerning 
whether you saw a need for modifications of Goldwater-Nichols in light 
of the changing environment, you indicated that there are a series of 
ongoing reviews of Goldwater-Nichols and that you would study these 
reviews, if confirmed.
    In light of your experience as Vice Chairman and your study of the 
reviews do you see any need for modifications to Goldwater-Nichols? If 
so, what areas do you believe it might be appropriate to address in 
these modifications?
    Answer. The reviews of Goldwater-Nichols have been completed and 
the required modifications incorporated into how the Department manages 
joint officers.
    During the past 2 years, the joint officer management process has 
built on the strong foundation established by the Goldwater-Nichols Act 
with a flexible structure to meet the ever-changing landscape 
characterized by today's military environment. The new Joint 
Qualification System is more responsive to the warfighters in multi-
Service, multi-national, and interagency operations and produces fully 
qualified and inherently joint officers to meet the needs of our great 
Nation. Our emphasis will continue to focus on assigning high quality 
officers to joint assignments and ensuring they receive a joint 
experience that produces experts in joint matters. As we continue to 
advance jointness, joint officer management will continue to evolve. As 
we evolve, we may find some areas of the law that may require some 
future modification. However, at this time, I believe we have the 
necessary tools.
                                 duties
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Vice Chairman of the Joint Chiefs of 
Staff as set forth in section 154 of title 10, U.S.C., and in 
regulations of the Department of Defense (DOD) pertaining to functions 
of the Vice Chairman of the Joint Chiefs of Staff?
    Answer. None at this time.
    Question. Based on your previous experience as Commander, U.S. 
Strategic Command, and your current experience as the Vice Chairman of 
the Joint Chiefs, what recommendations, if any, do you have for changes 
in chapter 6 of title 10, U.S.C., as it pertains to the powers and 
duties of combatant commanders?
    Answer. None at this time.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Vice Chairman of the Joint Chiefs of Staff to the following 
officials:
    The Secretary of Defense.
    Answer. As a member of the Joint Chiefs of Staff, the Vice Chairman 
performs the duties prescribed for him as a member of the Joint Chiefs 
of Staff and such other duties as may be prescribed by the Chairman 
with the approval of the Secretary of Defense.
    Additionally, in the absence or disability of the Chairman, the 
Vice Chairman acts as the Chairman and performs the duties of the 
Chairman until a successor is appointed or until the absence or 
disability ceases. These duties include serving as the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense.
    As a member of the Joint Chiefs of Staff, the Vice Chairman may 
submit advice or opinions to the Chairman in disagreement with, or in 
addition to, the advice presented by the Chairman to the President, the 
National Security Council, or the Secretary of Defense. The Chairman 
submits such opinion or advice at the same time he delivers his own.
    The Vice Chairman, as a member of the Joint Chiefs of Staff, may 
also individually or collectively, in his capacity as a military 
advisor, provide the Secretary of Defense advice upon the Secretary's 
request.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Vice Chairman with the Deputy 
Secretary is similar to that with the Secretary. In addition, the Vice 
Chairman co-chairs the Deputies Advisory Working Group with the Deputy 
Secretary of Defense to work key resources and management issues for 
DOD.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties prescribed for him as 
a member of the Joint Chiefs of Staff and such other duties as 
prescribed by the Chairman with the approval of the Secretary of 
Defense. When there is a vacancy in the office of the Chairman, or 
during the absence or disability of the Chairman, the Vice Chairman 
acts as Chairman and performs the duties of the Chairman until a 
successor is appointed or the absence or disability ceases. If 
confirmed, I look forward to sustaining a close and effective working 
relationship with the Chairman.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. They may issue instructions and directive type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Under Secretaries.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, and for Networks and 
Information Integration, all Assistant Secretaries of Defense are 
subordinate to one of the Under Secretaries of Defense. In carrying out 
their responsibilities, and when directed by the President and 
Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Assistant Secretaries in a manner similar to that 
described above for the Under Secretaries.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165 provides that, subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the secretaries 
of military departments are responsible for administration and support 
of forces that are assigned to unified and specified commands.
    The Chairman, or Vice Chairman when directed or when acting as the 
Chairman, advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the military department 
conform with priorities in strategic plans and with the priorities 
established for requirements of the COCOMs.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. With 
respect to title 10 responsibilities, they serve two significant roles. 
First and foremost, they are responsible for the organization, 
training, and equipping of their respective Services. Without the full 
support and cooperation of the Service Chiefs, no combatant commander 
can be ensured of the preparedness of their assigned forces for 
missions directed by the Secretary of Defense and the President.
    Second, as members of the Joint Chiefs of Staff, the Chiefs are 
advisors to the Chairman and the Secretary of Defense as the senior 
uniformed leaders of their respective Services. If confirmed, I will 
work closely with the Service Chiefs and their Vice Chiefs to fulfill 
warfighting and operational requirements.
    Question. The Combatant Commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. The Chairman provides a vital 
link between the combatant commanders and other elements of DOD, and as 
directed by the President, serves as the means of communication between 
the combatant commanders and the President or Secretary of Defense. 
When the Vice Chairman is performing the Chairman's duties in the 
latter's absence, he relates to the combatant commanders as if he were 
the Chairman.
    Question. The Special Assistant to the President/Deputy National 
Security Advisor for Iraq and Afghanistan.
    Answer. Because the Special Assistant to the President/Deputy 
National Security Advisor for Iraq and Afghanistan is an officer 
serving in an agency outside DOD, the Vice Chairman of the Joint Chiefs 
of Staff communicates to that official through the Secretary of 
Defense.
    Question. The Under Secretary of Energy for Nuclear Security.
    Answer. The Vice Chairman of the Joint Chiefs of Staff is a member 
of the Nuclear Weapons Council along with the Under Secretary of Energy 
for Nuclear Security. In this capacity, we will work together to 
oversee and coordinate the Nation's nuclear weapons policies to include 
the safety, security, and control issues for existing weapons and 
proposed new weapons programs.
                     major challenges and problems
    Question. What are the major challenges that you have faced in your 
first term as Vice Chairman of the Joint Chiefs of Staff?
    Answer. First, supporting the ongoing war against violent 
extremism. Second, ensuring COCOMs are better represented in the 
requirements, acquisition, and resourcing processes. Third, ensuring 
needs of the COCOMs are realized in a timely affordable fashion.
    Question. What new challenges do you expect to face if you are 
confirmed for a second term?
    Answer. First, the transition of our warfighting forces in support 
of the Nation's priority effort in Afganistan. Second, we face the 
threat of a diminishing deterrence capability able to address the nexus 
of weapons of mass destruction (WMD) and violent extremism. Third, the 
emergence of cyber threats against private citizens, the commercial 
sector, and national security.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will first work to ensure our forces have 
the resources and capabilities to enable them to prevail in Afganistan. 
Second, I will work with the COCOMs, OSD, and our interagency partners 
to develop the capabilities necessary to deter both the extremists that 
seek WMD and those who would either proliferate these weapons or who 
are ineffective in safeguarding these weapons. Third, I will support 
the stand-up of the recently announced Cyber Command and the 
development of capabilities and protocols necessary to defend the 
Nation's interests and protect the rights that define our way of life 
under the Constitution.
                  joint requirements oversight council
    Question. As the Vice Chairman of the Joint Chiefs of Staff, you 
are now, and if confirmed, you would continue to be, the chairman of 
the Joint Requirements Oversight Council (JROC). The JROC has the 
responsibility to review and validate Service requirements.
    What is your view of the modifications to the JROC process made by 
the Weapon Systems Acquisition Reform Act of 2009?
    Answer. My basic goal, if confirmed, would be to enhance the voice 
of the customer [COCOM] in the requirements process. We are supportive 
of the overall goal of the changes mandated by the Reform Act. Many of 
the JROC process changes codified improvements we incorporated into our 
procedures over the last few years.
    Question. What additional steps do you believe that Congress or the 
Department should take to ensure that trade-offs between cost, 
schedule, and performance objectives for major weapon systems are made 
at an appropriately early point in the acquisition process?
    Answer. I do not believe any additional congressional action is 
necessary at this point. The Joint Capabilities Integration and 
Development System process, working in concert with the acquisition and 
programming processes, ensures there is an assessment of tradeoffs 
between cost, schedule, and performance throughout the lifecycle of a 
program. Recent changes to these processes, some codified in the 2009 
Acquisition Reform Act, should be allowed to mature for a period of 
time before we make any additional modifications.
    Question. Are there any other recommendations that you would make 
to modify JROC or its authority or the requirements process?
    Answer. In today's environment, JROC needs to be as responsive as 
possible to warfighter needs. JROC should represent the combatant 
commanders' interests, Service interests, as well as the Office of the 
Secretary of Defense. I would recommend changes to the extent possible 
be codified in Department level directives. Currently, the VCJCS sits 
as the Chairman of JROC as a delegated authority from the CJCS. Among 
the changes I would advocate are, the VCJCS should be designated as 
Chairman of JROC. He should have the authority to delegate, when 
appropriate, requirements decisionmaking authority to the commander of 
a functional COCOM for specific capabilities or a portfolio of 
capabilities. I would also invest the Chairman of JROC with the 
authority to make the final decision on requirements after having heard 
and reviewed the membership positions of the members of the council.
    Question. How would you assess the effectiveness of JROC in the DOD 
acquisition process?
    Answer. I believe JROC is an effective partner with OSD in the 
acquisition process. We have tracked closely with OSD as the DOD 
acquisition process has been recently modified and have made changes to 
the requirements process to ensure we maintain our alignment. Through 
participation in many common forums, such as the Defense Acquisition 
Board and the Deputy's Advisory Working Group, we are able to identify 
any disconnects early and make the necessary course corrections. We 
also closely track program performance through development.
    Question. What is your vision for the role and priorities of JROC 
in the future?
    Answer. The priority for JROC now and in the future will be to 
understand and be responsive to the needs of the combatant commanders. 
To that end, JROC will continue to focus on meeting the urgent 
capability needs of today's warfighter while also working with the 
combatant commanders to define the capabilities required for the future 
force.
    Question. What changes, if any, would you recommend in the 
membership of the JROC?
    Answer. Currently the COCOMs are invited to participate as advisors 
to JROC at their discretion. I would like to see COCOM, OSD(P), 
OSD(AT&L), and OSD(C) participation formalized by including them as 
members of JROC to ensure JROC clearly understands the warfighter's 
concerns and issues before decisions are made. In order to ensure 
warfighter requirements are understood and consistent in translations 
to solutions, I also recommend OSD(P), OSD(AT&L), and OSD(C) be 
permanent members.
    Question. Do you believe the JROC process is sufficient to 
understand and identify where there are opportunities for multi-Service 
collaboration or where programs could or should be modified to take 
advantage of related acquisition programs?
    Answer. We can always improve but generally JROC is effective in 
ensuring collaboration among the Services. The Services participate 
throughout the requirements vetting process. One new initiative is to 
use COCOM defined and prioritized attributes through the Senior 
Warfighter Forums (SWarF) process to balance cross Service programs.
    Question. What principles guide your approach to inviting and 
helping ensure the sufficient participation of other such stakeholders 
in JROC?
    Answer. I view JROC as an open, collaborative forum where we 
solicit input and advice from any organization with a stake in the 
requirements being validated.
             acquisition reform and acquisition management
    Question. What is your view of the changes made by the Weapon 
Systems Acquisition Reform Act of 2010?
    Answer. I fully support the changes made in the Acquisition Reform 
Act and am working to implement any necessary changes to the 
requirements process.
    Question. What role have you played, and do you expect to play, if 
confirmed, in the implementation of that Act?
    Answer. As the Chairman of JROC, I am working to implement any 
changes to the requirements process necessary to support implementation 
of the act.
    Question. What role, if any, do you believe JROC should play in the 
oversight and management of acquisition programs after requirements 
have been established?
    Answer. I believe JROC should continue to monitor the execution of 
acquisition programs to identify potential areas where requirements may 
be driving cost growth and schedule delays. To that end, we have 
established a trip-wire process to bring programs experiencing cost 
growth or excessive delays back to JROC for review. During these 
reviews, we consider performance trades to mitigate further growth in 
cost and delays in schedule.
    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of the Joint Chiefs of Staff in the 
requirements determination, resource allocation, or acquisition 
management processes?
    Answer. No. I believe these roles are well-defined and effective in 
providing coherent integration between the three processes.
    Question. What is your view of the role played by configuration 
steering boards in preventing cost growth due to requirements creep?
    Answer. I think that the configuration steering boards are still 
maturing, but can provide meaningful advice to the milestone decision 
authority on areas where requirements imposed by acquisition officials 
could be adjusted to prevent cost growth and schedule slips.
    Question. What do you see as the proper relationship between 
configuration steering boards and JROC in managing requirements for 
acquisition programs?
    Answer. When a configuration steering board recommends adjusting 
requirements to prevent or mitigate cost growth or schedule delays, the 
requirements community should weigh the recommendations and provide 
clear guidance in support of the recommendations as appropriate. If 
there are concerns, the concerns should be presented to the board in a 
timely fashion.
    Question. What is your view of the Nunn-McCurdy requirements for 
major defense acquisition programs that fail to meet cost, schedule, 
and performance objectives?
    Answer. The Nunn-McCurdy certification requirements force the 
Department to perform a fundamental reassessment of a program and to 
decide to either restructure it or terminate it. From a JROC 
perspective, it is appropriate to ask the warfighter to revalidate the 
program's essentiality and requirements. In 2007, JROC established a 
trip-wire process to bring troubled programs back to JROC for a review 
and to consider performance trade-offs to mitigate further cost growth 
and/or schedule delays before the program faced a Nunn-McCurdy review.
    Question. What do you see as the proper relationship between JROC 
and those charged with implementing the Nunn-McCurdy requirements?
    Answer. The role of JROC as the military advisor to the milestone 
decision authority is appropriate when assessing Nunn-McCurdy breaches.
    Question. There have been a number of studies in the past several 
years that have recommended a variety of changes in the way that the 
acquisition programs are managed.
    What is your view of these studies and which recommendations, if 
any, has JROC implemented?
    Answer. JROC views the studies as providing valuable insight and 
recommendations to improve the requirements process and improve its 
linkage to the acquisition and programming processes. We have 
implemented many recommendations to streamline the requirements 
process, enhance the engagement of the combatant commanders in 
validating joint warfighter needs, and to critically assess cost, 
schedule, and performance.
    Question. Do you see any need to make any changes to the Joint 
Capabilities Integration and Development (JCIDS) process?
    Answer. We've just completed a major update to the JCIDS process 
and will continue to evaluate the need for further changes. This 
included changes to align the JCIDS process with the recent changes to 
the DOD acquisition process. But more importantly we streamlined the 
process to reduce non-value added administration and improve visibility 
and access for all stakeholders.
                        nuclear weapons council
    Question. If confirmed for a second term as Vice Chairman of the 
Joint Chiefs of Staff, you would continue to serve as a member of the 
Nuclear Weapons Council (NWC).
    What would your priorities be for the NWC?
    Answer. If confirmed, I look forward to continuing my membership on 
the NWC as Vice Chairman of the Joint Chiefs of Staff.
    My priorities will continue to focus on ensuring a safe, secure, 
and reliable nuclear weapons stockpile that can meet the current and 
future national security interests of the United States; and developing 
stockpile options, including warhead and infrastructure modernization, 
that support the President's objectives and future arms control 
commitments.
    I look forward to working with Congress to address these challenges 
to ensure we meet our national security requirements while assuring our 
allies with a secure, credible, and modern nuclear arsenal.
    Question. What changes, if any, would you recommend to the 
organization, structure, or function of the NWC?
    Answer. I support the current initiative to include the Chief of 
Naval Operations and the Chief of Staff of the Air Force as members of 
the NWC.
    Question. What role is the NWC playing or should it play in the 
ongoing negotiations for a follow-on to the Strategic Arms Control 
Treaty?
    Answer. As a body, the NWC does not play an active role in the 
follow-on Strategic Arms Control Treaty negotiations. However, the NWC 
itself is aware of ongoing negotiations efforts and is working closely 
with key leaders in both the negotiating and NPR teams.
    Question. What role is the NWC playing or should it play in the 
ongoing deliberations on the NPR?
    Answer. The NWC is aware and providing input to the NPR 
deliberations and will play an important role in implementing the 
policy recommendations that result from the NPR's effort.
               distribution of general and flag officers
    Question. At the request of the Secretary of Defense, Congress 
included a provision in the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 that designated up to 324 
general and flag officer positions as joint duty assignments that are 
excluded from the limitation on the number of general and flag officers 
in each Service, and specified the minimum number of officers required 
to serve in these positions for each Service. The provision also 
reduced the number of general and flag officers authorized to serve on 
Active Duty in each Service. Implementation of this provision was 
delayed until 1 year after the Secretary of Defense submits a report on 
the proposed implementation of the provision, which took place in June 
2009.
    What is your view of the merits of this provision?
    Answer. The provision does not reduce the number of general and 
flag officers authorized to serve on Active Duty. Implementation of 
this provision will support the objectives of the Goldwater-Nichols Act 
by creating a duty assignment statutory framework that allows the 
Secretary of Defense to reimburse the Services for participation in 
joint with general and flag officer authorizations. Importantly, the 
joint pool recognizes in-Service general and flag officer requirements 
to accomplish the mission organize, train, and equip are separate from 
joint general/flag officer requirements.
    Question. In your view, what impact will implementation of this 
provision have on joint officer assignments?
    Answer. The joint pool will increase competition for these senior 
joint duty assignments. The legislation provides incentives for the 
Military Services to nominate their best officers, from both their 
Active Duty and Reserve components, thereby accelerating the 
competencies required for our Nation to continue to address the 
challenges that confront our forces. As proposed, the distribution of 
senior joint authorizations among the Military Services with a 
specified minimum distribution for each Service expands the number of 
positions open to nomination by all four Services.
    Question. In your opinion, should implementation of this provision 
be delayed until June 2010, 1 year from the date the Secretary 
submitted the required report?
    Answer. The Department is requesting enactment of conforming 
legislation in the Department's 2010 legislative package. This provides 
the Department the flexibility to rapidly meet emerging joint 
requirements.
                           rebalancing forces
    Question. In a memorandum of July 9, 2003, the Secretary of Defense 
directed action by the Services, the Joint Staff, and the Office of the 
Secretary of Defense aimed at achieving better balance in the 
capabilities of the Active and Reserve components. The Secretary noted 
that the Department ``needs to promote judicious and prudent use of the 
Reserve components with force rebalancing initiatives that reduce 
strain through the efficient application of manpower and technological 
solution based on a disciplined force requirements process.''
    What progress has been made in achieving the Secretary's vision?
    Answer. Much progress has been made but much work still lies ahead 
of us. As examples of progress made I would highlight:

          1. Access to our National Guard and Reserve Forces has 
        allowed the level of engagement we have been able to support in 
        Operation Iraqi Freedom (OIF)/Operation Enduring Freedom (OEF).
          2. The integration of National Guard, Reserve, and Active 
        Forces in our first Chemical, Biological, Radiological, 
        Nuclear, and Explosive Consequence Management Response Force 
        has given our Nation a much needed capability to assist our 
        civil authorities as we respond to homeland situations.

    Question. What do you consider to be the biggest continuing 
obstacles to achieving the goals that the Secretary of Defense has set 
forth in his memorandum?
    Answer. Our biggest challenge in achieving the Secretary of 
Defense's goals is to determine the optimal balance of capabilities in 
Active component and Reserve component based on a complex and changing 
operational environment. As an example in the QDR, we are working to 
determine how to get the most capacity out of our rotary wing forces. A 
key aspect of this work is the balance between Active and Guard/Reserve 
Forces including expectations of our Guard/Reserve personnel regarding 
access.
                          mental health issues
    Question. The final report of the DOD Task Force on Mental Health 
issued in June 2007 found evidence that the stigma associated with 
mental illness represents a ``critical failure'' in the military, 
preventing individuals from seeking needed care. The report states, 
``Every military leader bears responsibility for addressing stigma; 
leaders who fail to do so reduce the effectiveness of the 
servicemembers they lead.'' In light of increasing suicide rates in 
each of the Services and servicemembers diagnosed with post-traumatic 
stress, it is more important than ever to ensure that servicemembers 
and their families have access to mental health care and that the 
stigma associated with seeking such care is eliminated.
    If confirmed, what actions would you take to address the stigma 
associated with mental illness in the military?
    Answer. The stigma associated with mental health illness is an 
issue in both the civilian community and the military. I consider the 
elimination of mental health stigma to be a leadership issue, not a 
health issue. I support the Chairman's determination to change our 
culture and I assure you this is a top priority for me as well. If 
confirmed, I intend to provide strong leadership to ensure that we 
overcome this impediment and expect leaders at every level to follow 
suit.
    The Chairman chartered a task force of subject matter experts from 
across the Joint Staff to develop a Campaign Plan for Warrior and 
Survivor Care. The Campaign Plan specifically addresses these issues. 
The Task Force, in partnership with the National Defense University and 
the Defense Centers of Excellence for Psychological Health and 
Traumatic Brain Injury, is facilitating the development of a 
psychological health leader education program for all National Defense 
University schools. We continue to actively seek out senior military 
leaders who have received psychological health care and gone on to 
excel in their careers, and use these leaders to mentor our leaders of 
the future. I will continue to include this topic as a priority in each 
of my interactions with servicemembers and families, and actively 
encourage other leaders to address the issue across our spectrum of 
senior leader engagement opportunities.
    We have started to address this issue within other areas of DOD as 
well. The Services have implemented multiple initiatives to build 
resilience, prevent adverse effects of combat stress, and provide 
increased access to mental health services, including initiatives such 
as embedding mental health personnel in our deploying units and 
performing post-deployment health assessments and reassessments.
    In response to the 2007 Mental Health Task Force report, DOD 
developed an action plan to address over 365 recommendations from the 
Mental Health Task Force report as well as several other reports. We 
continue implementation of the action plan, and updates are provided to 
Congress each fall. I will continue to work closely with Congress, our 
military leaders, Veterans Affairs, and other Federal and civilian 
organizations to see that our servicemembers' and families' 
psychological health and mental health issues are addressed.
    Question. What is your view of the need for revision to military 
policies on command notification when servicemembers seek mental health 
care?
    Answer. Because of the known connection between these policies and 
the issue of stigma that we currently face, I believe that all policies 
for command notification should be closely examined for their true 
association with military readiness and safety. Without question, when 
military readiness and safety are not adversely impacted, policies 
which mandate command notification should be changed.
    Secretary Gates' recent announcement that the military security 
clearance process will no longer include questions about mental health 
care history is a significant step in attempting to remove the stigma 
of receiving mental health care among military members, particularly in 
a time of war when combat stress is impacting many of our 
servicemembers.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving military 
personnel in Iraq, Kuwait, and Afghanistan have been reported over the 
last several years. Many victims and their advocates contend that they 
were victimized twice: first by attackers in their own ranks and then 
by unresponsive or inadequate military treatment. They assert that the 
command failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their 
charges.
    What role, if any, should the Joint Staff have in monitoring 
progress within the Military Services and the COCOMs' areas of 
responsibility (AOR) in order to ensure enforcement of a ``zero 
tolerance'' policy relating to sexual assaults?
    Answer. As a member of the DOD Sexual Assault Advisory Council, it 
is important that the Joint Staff continues to partner with OSD, the 
Military Services, and the COCOMs to assess the requirements and 
effectiveness of policies and procedures in place to enforce the ``zero 
tolerance'' policy. This is the appropriate forum to monitor progress 
and provide senior leader oversight.
    The Joint Staff works closely with the COCOMs during the 
development of operational plans and personnel policy guidance to 
ensure the prevention and response to incidents of sexual assault is 
addressed.
    Question. What reporting requirements or other forms of oversight 
by Service leaders do you think are necessary to ensure that the goals 
of sexual assault prevention and response policies are achieved?
    Answer. Currently reports are submitted through Service channels. 
The fielding of the new DOD sexual assault information database will 
improve communication protocols to better track victims services, case 
management and disposition, and identify trends and areas requiring 
additional emphasis.
    The new database will also provide combatant commanders oversight 
of sexual assaults that occur in their AOR.
    Question. What is your understanding of the resources and programs 
in place in deployed locations to offer victims of sexual assault the 
medical, psychological, and legal help that they need?
    Answer. There is a 24/7 response capability in deployed areas. The 
Services have primary responsibility to ensure sexual assault response 
personnel in deployed locations (Sexual Assault Response Coordinators 
(SARCs), Victim Advocates, medical and mental health providers, 
criminal investigation and legal personnel) are well-trained to support 
victims and investigate and respond to allegations of sexual assault. 
If resources are not readily available where the alleged incident 
occurred, victims are transported to a facility were there is 
appropriate victim advocate support, medical and psychological care 
(regardless of Service), and investigative/legal support.
    I am aware that a number of recommendations were made to CENTCOM in 
the DOD Fiscal Year 2008 Report on Sexual Assault in the Military, 
released in March. These included deploying SARCs and Victim Advocates 
and outfitting larger field hospitals with sexual assault forensic 
examination kits for evidence collection. Initial, independent Service 
responses to these recommendations may have created areas where 
duplicative support structures exist. In these instances, opportunities 
may exist to better pool and employ resources to optimize coverage and 
improve response.
    Also, the Defense Task Force on Sexual Assault in the Military 
Services is currently evaluating how effectively the Services are 
implementing DOD sexual assault policy and procedures. They interviewed 
key sexual assault responders currently deployed in Afghanistan, 
including chaplains, counselors, medical and legal personnel, and 
Criminal Investigations Division agents regarding how they handle cases 
of sexual assault. In addition, the Task Force has surveyed SARCs and 
Victim Advocates in Afghanistan regarding the level of resources and 
support they have, and regarding the effectiveness of restricted 
reporting in the deployed environment. Their findings and 
recommendations will be reported to the Secretary of Defense later this 
year.
    Commanders at all levels must remain committed to eliminating 
sexual assault within our forces by sustaining robust prevention and 
response policies; by providing thorough and effective training to all 
assigned servicemembers, by identifying and eliminating barriers to 
reporting; and by ensuring care is available and accessible.
    Question. What is your view of steps the Services have taken to 
prevent sexual assaults in deployed locations?
    Answer. The Services are implementing procedures and processes to 
meet the challenges of preventing and responding to incidents of sexual 
assault in the deployed areas. All servicemembers and first responders 
receive sexual assault and sexual harassment prevention training prior 
to deployment. The use of the internet and media are effective tools in 
keeping deployed personnel informed and trained in prevention 
techniques. Coordination among Service sexual assault response 
personnel has improved support to victims in the operational 
environment and provides additional resources to conduct additional 
training, if needed.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. The Services are responsible for training sexual assault 
response personnel to ensure they are well-trained to investigate and 
respond to allegations of sexual assault. This includes the 
investigative resources in deployed areas. However, as you may imagine, 
the combat environment and deployed operations are very dynamic. The 
investigative resources are often strained by other mission 
requirements. Access to resources may be complicated by remoteness of 
locations, availability of transportation to and from those areas, or 
the level of ongoing operations. I believe the DOD training network in 
place now prepares them and investigators to handle sexual assault 
cases in a caring, responsive, and professional manner. Our ability to 
respond and support victims is paramount.
    Question. Allocating more funding and resources to the program to 
adequately implement all the program requirements will improve response 
capability.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential or restricted reporting, to be 
effective?
    Answer. I believe current policies and procedures have improved 
care to victims of sexual assault; however, restricted reporting limits 
a commander's ability to support the victim, investigate, and/or hold 
alleged offenders accountable.
    Restricted reporting has been effective (original intent--to allow 
a sexual assault victim to confidentially receive medical treatment and 
counseling without triggering the official investigation process). 
Although the use of restricted or confidential reporting doesn't allow 
a commander to investigate alleged assaults, it does allow a sexual 
assault victim to confidentially receive medical treatment and 
counseling without triggering the official investigation process. Since 
restricted reporting was implemented in fiscal year 2005, 406 
restricted reports converted to unrestricted reports which allowed 
commanders to conduct appropriate investigations.
    Unrestricted reporting supports a sexual assault victim who desires 
medical treatment counseling but also provides for official 
investigation of his or her allegations within existing administrative 
reporting channels (such as their chain of command, law enforcement, or 
through the SARC).
    As our military members' confidence in the reporting and 
investigative policies and procedures improve, I believe more alleged 
offenders can be held accountable. The greatest effect still lies in 
preventive measures and eliminating sexual assaults.
    Question. What problems, if any, are you aware of regarding the 
manner in which the confidential reporting procedures have been put 
into effect?
    Answer. Privacy for restricted and unrestricted reporting becomes a 
challenge in a deployed environment and remote locations were units are 
small communities where accountability of personnel is a critical task 
for units. In deployed areas confidential reporting becomes more 
difficult for the victim to reach out to the SARC or a victim advocate 
because of the need to keep track of all personnel movements within the 
theater and that support resources may not be colocated with the 
victim. The joint deployed environment could present additional 
difficulties in case management, delivering care, and tracking services 
due to differences among Service programs. It is my understanding that 
the DOD Sexual Assault Prevention and Response Office is working to 
field a Joint Sexual Assault Database to improve our ability to 
communicate between the Services. The database is currently projected 
for fielding in 2010.
    Question. If confirmed, what actions would you take to ensure 
senior level direction and oversight of efforts to prevent and respond 
to sexual assault?
    Answer. I am currently the only military representative on the DOD 
Sexual Assault Advisory Council. I think the addition of the Service 
Vice Chiefs will add to the effectiveness of this senior body and help 
to ensure the policies and procedures are executable in the operational 
environment. This is an area of interest for the Joint Chiefs and 
combatant commanders.
               commission on national guard and reserves
    Question. In a March 1, 2007, report to Congress, the Commission on 
the National Guard and Reserves recommended, among other things, that 
the Chief of the National Guard Bureau should not be a member of the 
Joint Chiefs. The grade of the Chief of the National Guard Bureau has 
since been increased to general, as recommended by this Commission.
    What is your view about making the Chief of the National Guard 
Bureau a member of the Joint Chiefs of Staff? What is your rationale 
for this opinion?
    Answer. The idea of making the Chief of the National Guard Bureau 
(CNGB) a member of the Joint Chiefs of Staff has been debated for quite 
some time. The Commission on the National Guard and Reserves (CNGR), in 
fact, took a very detailed look at the concept and recommended that the 
CNGB not be a member of JCS. DOD concurred with the CNGR recommendation 
in 2006. I also believe that CNGB should not be a member of the Joint 
Chiefs of Staff. The Joint Chiefs of Staff consists of the Chairman, 
Vice Chairman, and the Chiefs of Staff for the armed services. The 
National Guard is a component of the armed services and is represented 
on the Joint Chiefs of Staff by the Chiefs of Staff of the Army and the 
Air Force. A separate representation of a portion of the Reserve 
components from a portion of the Services would be inappropriate, 
confusing, and in my view divisive of a total force. As a four star 
general officer, the CNGB is already participating in all appropriate 
Joint Chiefs of Staff tank sessions and discussions concerning issues 
which fall under the purview of our National Guard. This is similar to 
the methodology used to include the Commandant of the U.S. Coast Guard 
when specific Coast Guard equities are involved.
    Question. In its final report, issued January 31, 2008, the 
Commission made a number of findings and recommendations on increasing 
the capabilities and responsibilities of the National Guard and 
Reserves in the Homeland. The Commission concluded ``DOD must improve 
its capabilities and readiness to play a primary role in the response 
to major catastrophes that incapacitate civilian government over a wide 
geographic area. This is a responsibility that is equal in priority to 
its combat responsibilities.'' In response to a request for his 
assessment of the final report of the Commission, Admiral Mullen 
responded on April 21, 2008: ``I have some concern with the 
Commission's ideas on enhancing the Defense Department's role in the 
Homeland. While the Reserve component civil support requirements are 
important, they should not be of equal importance to DOD combat 
responsibilities.''
    What is your view of the Commission's assertion that the 
Department's role in response to major catastrophes should be equal in 
priority to its combat responsibilities?
    Answer. I agree with the Chairman's position that DOD should not 
have statutory or policy directives that elevate civil support to the 
same level as combat responsibilities. The Department has taken--and 
continues to take--seriously its responsibility to provide support for 
civil authorities. Codification of civil support for domestic events as 
a core competency could unintentionally impede other Federal 
departments and agencies in the fulfillment of their own unique 
statutory responsibilities. Such codification would also erode DOD's 
ability to perform its statutory responsibility.
    Question. In its March report to Congress, the Commission also 
recommended that DOD ``develop protocols that allow Governors to direct 
the efforts of Federal military assets responding to an emergency such 
as a natural disaster.'' In its final report (January 31, 2008), the 
Commission reemphasized the importance of this recommendation.
    In the statement of managers accompanying the National Defense 
Authorization Act for Fiscal Year 2008, the conferees urged the 
Secretary of Defense ``to address the nature of command relationships 
under which troops will operate during particular contingencies and 
ensure, as recommended by the Commission on the National Guard and 
Reserves, that necessary agreements are entered into as soon as 
practicable.'' In the statement of managers accompanying the Duncan 
Hunter National Defense Authorization Act for Fiscal Year 2009, the 
conferees stated: ``DOD should engage with the community of Governors 
to work out an understanding of unity of effort during domestic 
terrorist events and public emergencies.''
    In your view, should Governors have tactical control over military 
forces, including those in a title 10, U.S.C., Active status, operating 
in their State? What is your rational for this opinion?
    Answer. I do not believe Governors require the ability to exert 
tactical control over all military forces operating within their State 
when they are providing military support to civil authorities. 
Governors already have the authority to exert tactical control over 
National Guard forces in a State Active Duty or title 32 status. 
Furthermore, Governors have the ability to request the assistance of 
Federal forces in response to terrorist acts and/or public domestic 
emergencies when the Governor believes such assistance is necessary. 
Available forces for such events will be placed under tactical control 
of the designated Joint Task Force Commander or under operational 
control of the Commander, NORTHCOM. The designated Commander working 
with the Governor and the State's Adjutant General will be able to 
provide the necessary support to restore order, save lives, and secure 
property as the situation dictates.
    This operational construct was developed in accordance with title 
10, U.S.C., and I believe that the procedures and relationships that 
have been put in place since Hurricane Katrina will enhance the unity 
of effort between Governors and the Federal forces that provide support 
when requested to assist in responding to acts of terrorism or natural 
catastrophes.
                               dwell time
    Question. Dwell time goals still are not being met for either the 
Active or Reserve components, and recent testimony suggests that dwell 
time will not improve appreciably over the next 12 to 18 months.
    In your view, what can be done to increase dwell time for both 
Active and Reserve component members, and when will these improvements 
be seen?
    Answer. The current programmed growth in capabilities needed to 
support ongoing operations, as well as the planned reduction in force 
levels in the OIF campaign, will lead to improved dwell ratios in both 
Active and Reserve components. As operational demand changes, we will 
continue to assess the impact to dwell time and make appropriate 
adjustments.
    Question. Would additional Army end strength in 2010 or 2011 
improve dwell time ratios and reduce stress on the force?
    Answer. Realizing any increase in end strength requires time before 
operational capability is realized, additional Army end strength in 
2010 or 2011 would not provide immediate relief from the current stress 
on the force. The Department will continue to assess each Service's end 
strength in light of operational demand and the National Military 
Strategy.
                   end strength of active-duty forces
    Question. In light of the manpower demands of OEF and OIF, what 
level of Active-Duty personnel (by Service) do you believe is required 
for current and anticipated missions?
    Answer. Both the Army and Marine Corps are growing to 547,000 in 
fiscal year 2012 and 202,000 in fiscal year 2011, respectively. We 
continue to assess requirements of the Active-Duty Force as we draw 
down in OIF and increase our operational presence in OEF. This area is 
undergoing rigorous review as part of the QDR where we plan to include 
these recommendations in the President's fiscal year 2011 budget.
                        military women in combat
    Question. The issue of the appropriate role of women in the Armed 
Forces is a matter of continuing interest to Congress and the American 
public.
    What is your assessment of the performance of women in the Armed 
Forces, particularly given the combat experiences of our military, 
since the last major review of the assignment policy for women in 1994?
    Answer. Women in our Armed Forces continue to make tremendous 
contributions to our national defense. They are an integral part of the 
force and are proven performers in the operational environment and 
under fire. It is important to understand that DOD policies do not 
contemplate women being assigned exclusively to positions immune from 
threats endemic to a combat theater. In fact, women are assigned to 
units and positions that may necessitate combat actions--actions for 
which they are fully prepared to respond and to succeed.
    Question. Does DOD have sufficient flexibility under current law to 
make changes to assignment policy for women when needed?
    Answer. The current law provides the Department sufficient 
flexibility to make changes to the assignment policy.
    Question. Do you believe any changes in the current policy are 
needed?
    Answer. Not at this time. DOD policy and practices are reviewed on 
an ongoing basis to ensure compliance and effective use of manpower.
           defense integrated military human resources system
    Question. The Department and the Services have expended great time, 
effort, and resources towards the development of the Defense Integrated 
Military Human Resources System (DIMHRS) as a cross-Service, fully 
integrated personnel and pay system. Achieving a joint, interoperable 
system was, and continues to be viewed, as a priority; however, the 
goals of the DIMHRS program have not been achieved. Recent reports 
indicate technical difficulties will postpone the Army's implementation 
date and that the Air Force, Navy, and Marine Corps all question the 
requirement that they adopt the current version of DIMHRS.
    What is the status of DOD, and Service by Service, implementation 
of DIMHRS?
    Answer. DIMHRS entered acquisition breach in January 2009. DIMHRS 
was certified by the Department for continued development of core 
requirements for each Service to develop as a separate system with a 
common data warehouse to capture information. The Department, the 
Services, and the Joint Staff are developing a business case and 
costing data for several courses of action on how to proceed with 
DIMHRS development.
    Question. What is your current assessment of the need for, and 
feasibility of, an integrated, cross-Service personnel and pay system?
    Answer. I believe the requirement to develop an integrated pay and 
personnel system is still valid. The need for cross-Service support has 
not diminished. I will continue to monitor the development efforts and 
provide advice as needed.
    Question. If confirmed, what changes, if any, would you recommend 
to the implementation schedule and process currently in place?
    Answer. Implementation schedules sometimes put unrealistic 
expectations for process completion ahead of providing a usable 
product. I would want to ensure the governance bodies of the DIMHRS 
implementation understand the value of balancing schedules with 
developing requirements of a viable DIMHRS product.
                            wounded warriors
    Question. In congressional testimony on the fiscal year 2010 budget 
request, Admiral Mullen has stated that there is, ``no higher duty for 
this Nation, or for those of us in leadership positions, than to care 
for those who sacrificed so much and who must now face lives forever 
changed by wounds both seen and unseen.'' The Chairman has taken an 
active role in advocating for services and support to the wounded and 
their families, including those suffering from post-traumatic stress 
disorder and other mental health conditions.
    What is your assessment of the progress made to date by the 
Department and the Services to improve the care, management, and 
transition of seriously ill and injured servicemembers and their 
families?
    Answer. We have made great strides since 2004 with respect to 
treating the seriously wounded. We have gone from having a situation 
where families had a hard time finding anyone to help manage their 
problems to a point where families complain that there are too many 
people and too many voices. We are in the midst of consolidating our 
many processes through coordinated efforts with our VA partners and the 
Senior Oversight Committee.
    Question. What are the strengths upon which continued progress 
should be made?
    Answer. I believe the greatest strength of the responses thus far 
has come from the involvement of senior leaders taking full ownership 
of the problem. At first look, people assumed this was a ``medical'' 
problem. Being wounded certainly requires medical care but it also 
requires personnel actions and transportation of families and pay 
actions and lots of other things that do not involve the skilled hands 
of doctors or nurses. The Chairman and I recognize the critical role of 
line leadership on this issue and every Service program we have today 
places line leaders in the center of the response.
                   defense readiness reporting system
    Question. In June 2002, the Department issued a directive to 
replace the current readiness reporting system, yet that replacement is 
yet to be fully operational.
    What challenges still remain in the transition from the Global 
Status of Resources and Training System (GSORTS) to the Defense 
Readiness Reporting System (DRRS) and what is the plan to fully 
implement DRRS? Have any delays or obstacles been attributed to 
technological maturity or changing requirements?
    Answer. To date, DRRS has developed a capability that enables 
reporting units to assess their designed and assigned mission 
readiness, articulated in terms of mission essential tasks. However, 
additional DRRS development and fielding challenges remain. 
Specifically, DRRS continues development efforts to replicate those 
readiness indicators that are migrating from legacy systems to DRRS. 
Additionally, current efforts are underway to ensure adequate tools are 
available for each of the Services to report GSORTS data directly into 
DRRS. Once developed, rigorous functional, interoperability, and 
operational testing will be necessary to ensure a seamless transition 
and integration with the Department's command and control systems. 
According to the DRRS Implementation Office's latest schedule, this 
testing will be complete in fiscal year 2011. When both capabilities-
based MET assessments and resource-based GSORTS data are available in 
the DRRS we can move toward full implementation. I don't believe any 
delays or obstacles can be attributed to technological maturity of 
changing requirements.
    Question. The Government Accountability Office (GAO) has reported 
that significant shortfalls remain in the implementation of DRRS, 
stability of requirements, adequacy of testing, and overall management 
and oversight of the program. What is your view on their findings?
    Answer. Over the past 2 years, the Joint Staff has provided 
periodic updates on DRRS development. Those staff updates touched on 
some of the points you raise in your question. Though I have not read 
the draft GAO report firsthand, it is my sense that GAO's findings on 
DRRS are likely consistent with my staff updates. That said, we've 
added rigor to the DRRS governance process to improve the DRRS 
deliverables and timeliness, and will explore the report for additional 
program improvement recommendations.
    Question. With respect to DRRS development and implementation, to 
what extent has the office of the Under Secretary of Defense for 
Personnel and Readiness worked or coordinated with the Director of 
Defense Research and Engineering and the Assistant Secretary of Defense 
(Networks and Information Integration)?
    Answer. The DRRS Directive (7730.65) assigned USD(P&R) 
responsibilities for developing, fielding, and funding of the program. 
I don't have specific insight into the extent of which they have worked 
or coordinated outside of ASD(NII) participation as a member of the 
governance process established in fiscal year 2008.
                      air force tactical aviation
    Question. General John Corley, USAF, Commander of the Air Force's 
Air Combat Command, has been quoted as saying, ``In my opinion, a fleet 
of 187 F-22s puts execution of our current national military strategy 
at high risk in the near- to mid-term.''
    In your personal and professional opinion, does having a fleet of 
only 187 F-22s put execution of our current national military strategy 
at high risk in the near- to mid-term?
    Answer. No. Overall, the operational risk of having the planned 
fleet of combat coded F-22s is acceptable. Strategically, it is 
important to develop proper capability and risk balance while 
continuing to maintain our technological edge. The Department is 
striving to have the right capability and risk balance established with 
our legacy aircraft, fifth generation capability, and unmanned aerial 
systems.
    Question. Do you personally support the Secretary's decision to end 
production at 187 planned aircraft?
    Answer. Yes.
    Question. General Corley is also quoted as saying, ``To my 
knowledge, there are no studies that demonstrate 187 F-22s are adequate 
to support our national military strategy.''
    Are there any studies or analyses supporting the decision by the 
Secretary of Defense to halt F-22 production at 187 aircraft?
    Answer. Yes. OSD conducted a Joint Air Dominance Study that found 
the F-22 programmed buy of 187 aircraft was adequate to confront future 
opponents with robust air-to-air capabilities. The key insight from the 
analysis was the importance of providing the Air Force, Navy, and 
Marine Corps with fifth generation capabilities rather than 
concentrating fifth generation capabilities in one military Service. 
Additionally, the Joint Staff OA-08 study assessed the sufficiency/
proficiency of the F-22 programmed buy. In OA-08, F-22 peak MCO and 
Steady State demands were found to be sufficiently covered with a total 
buy of 187.
    Question. If there are no studies or analyses, what was the basis 
of the Secretary's decision?
    Answer. Not applicable.
    Question. If there are no studies or analyses, what is the basis of 
your personal and professional position on the appropriate size of the 
F-22 fleet?
    Answer. Not applicable.
                                  iraq
    Question. What is your assessment of the current situation facing 
the United States in Iraq, particularly as the withdrawal from urban 
areas is completed?
    Answer. We are on track as we execute a responsible drawdown from 
Iraq. U.S. and Iraqi officials continue to conduct joint engagements 
which enhance stability, promote reconstruction, improve transparency, 
advance regional engagements, and lay the foundation for a diversified, 
growing economy. We are gradually building the capability and capacity 
of the Iraqi security forces, and they are stepping into the lead. Our 
withdrawal from urban areas in Iraq, while continuing to provide 
training and advice to the Iraqi security forces, demonstrates our 
commitment to the Security Agreement, and promotes a sovereign, stable, 
and increasingly self-reliant Iraq. The security situation remains 
fragile, but Iraqi leaders across all political sects have shown their 
determination to avoid reverting back to ethno-sectarian violence to 
resolve disputes.
    Question. What do you consider to be the most significant mistakes 
the United States made in Iraq? Which of these do you believe are still 
having an impact? Is there anything to be done now to mitigate such 
impact?
    Answer. While I wouldn't refer to this as a mistake, I believe the 
United States was overly optimistic in gauging how quickly various 
Iraqi political sects would choose to seek political solutions to 
problems, rather than choosing violence. We did not anticipate that the 
collapse of the Saddam regime would lead to an insurgency, and we were 
slow to recognize the insurgency when it came. I also believe that no 
one in the U.S. Government could have envisioned just how badly Iraq's 
infrastructure and its economy had deteriorated. The lack of essential 
services, health care, viable employment, and internationally compliant 
law enforcement mechanisms all helped to fuel the insurgency in Iraq.
    Our role is to increase the capacity of the Iraqi Government to 
deal with these issues effectively. Working with the Iraqis, we are 
effectively defeating insurgent elements attempting to destabilize 
Iraq. Both General Odierno and Ambassador Hill are heavily engaged in 
continuing the slow but steady progress. I feel our continued support 
to Iraq based on the security agreement and President's strategy is the 
right policy.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq to prepare for the end of the 
combat mission by the end of August 2010 and the withdrawal of all U.S. 
forces by the end of 2011?
    Answer. Per the President's plan, we seek an Iraq that is 
sovereign, stable, and self-reliant; an Iraqi Government that is just, 
representative, and accountable; neither a safe haven for, nor sponsor 
of terrorism; integrated into the global economy; and a long-term 
partner contributing to regional peace and security. The United States 
must continue to focus efforts on those sectors most critical to 
achieving these objectives to solidify the hard-fought gains we have 
achieved thus far.
    On the security front, we must continue to develop the capability 
and capacity of the Iraqi Ministries of Defense and Interior and assist 
the Iraqis in developing and fielding the logistics, fire support, 
intelligence, and other key enablers they will need to be successful in 
2012 and beyond. We also need to continue the political reconciliation 
and economic progress that will be the true foundation of stability.
    Question. What do you believe are the prospects for Iraqi political 
leaders to manage the changes associated with the U.S. withdrawal from 
urban areas?
    Answer. I believe the prospects are good. The Iraqi security forces 
have continued to improve in their capabilities, and concurrently, the 
people of Iraq are more confident in the security conditions in their 
neighborhoods. If you had asked me just 1 year ago if we would see a 
provincial election cycle which was relatively violence free, which was 
judged to be credible and fair by the United Nations, and which all 
political parties in Iraq recognized as fair, I would have expressed 
serious doubts. While not without incident, all 14 provinces which held 
elections successfully seated their new provincial councils and 
governors. We will continue to assist the political leadership to 
continue their efforts toward reconciliation, and develop provincial 
governments which are efficient and representative of all the people.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. In the near-term, while we recognize that security has 
improved greatly in Iraq, there are significant milestones on the 
horizon that are critical steps in our drawdown. Most notably, 
successful and legitimate national elections early next year and the 
subsequent seating of the new government is a critical step in our 
drawdown plan. Other critical steps to maintaining stability include 
the central government's capacity to govern effectively and provide 
essential services, continued GOI commitment to national reconciliation 
and accommodation (e.g., the Sons of Iraq program), and establishing a 
solid foundation for the rule of law.
    Question. What is your assessment of the capability of Iraqi 
security forces today? What support in your view will the United States 
need to provide in the future and over what period of time?
    Answer. I concur with General Odierno's assessment that based on 
current conditions, the ISF are ready to handle responsibilities for 
security in the cities and urban areas.
    Operational readiness continues to improve for both the Ministry of 
Defense forces as well as the Ministry of Interior. With U.S. 
assistance in the development and fielding of key enablers, I believe 
the ISF will be capable of handling internal security, to include 
counter-insurgency operations, by the time U.S. forces depart in 2012.
    Question. What considerations will be factored into a decision 
regarding whether (and if so, what kind and how much) U.S. military 
equipment currently in Iraq should be left behind for use by the Iraqi 
Army?
    Answer. Any decision to leave U.S. military equipment currently in 
Iraq behind for use by the Iraqi security forces will be based a number 
of factors, including (but not limited to):

        <bullet> Whether or not the particular item is essential to 
        establishing the Iraqis' ability to defend against internal 
        threats by December 2011.
        <bullet> The ability to meet the particular requirement through 
        more traditional military assistance mechanisms.
        <bullet> Whether or not the equipment is deemed excess by the 
        Service that owns it.
        <bullet> The desire of the Iraqis to have the equipment.
        <bullet> The ability of the Iraqis to maintain the equipment if 
        it is provided to them.
        <bullet> The replacement cost to the Services.
        <bullet> The impact on Services' ability to reset and reposture 
        the forces for current and future global commitments.
        <bullet> The cost to return particular equipment to the United 
        States and refurbish it compared to its fair market value and 
        remaining useful life.
        <bullet> Production lead times for new equipment.
        <bullet> If no other options are feasible, whether or not 
        specific items are so critical to Iraqi security forces' 
        success that it is in the national interest of the United 
        States to provided it to the Iraqis, even if the Services do 
        not declare it as excess (I recognize that the authority for 
        Secretary Gates to do this does not yet exist).

    Question. As conventional forces are drawn down in Iraq, the 
requirement for Special Operations Forces is likely to remain the same 
or even increase, for the foreseeable future. Special Operations 
Forces, however, rely heavily on their conventional counterparts for 
many support and enabling functions including airlift, medical 
evacuation, resupply, and intelligence, surveillance, and 
reconnaissance.
    What is being done to make sure Special Operations Forces in Iraq 
are being adequately supported as the drawdown progresses?
    Answer. Special Operations Forces continue to play an important 
role in Iraq. The Joint Staff, Commander of CENTCOM, Commander of 
Special Operations Command, and Commanders in Iraq will ensure that 
Special Operations Forces are properly supported as conventional forces 
are drawn down in accordance with the security agreement and the 
President's direction. We have coordinated closely with the Iraqi 
Security Special Forces following the Security Agreement, and we 
anticipate this close working relationship will continue, to the mutual 
benefit of both our forces as well as the Government of Iraq. As we do 
so, we will carefully balance scarce enablers between Iraq and 
Afghanistan.
                              afghanistan
    Question. In your view, what are the greatest challenges that U.S. 
forces face in implementing the administration's strategy for 
Afghanistan and Pakistan?
    Answer. U.S. forces face numerous, complex, challenges in 
implementing the administration's strategy for Afghanistan and 
Pakistan: a resilient Taliban insurgency, increasing levels of 
violence, lack of governance capability, persistent corruption, lack of 
development in key areas, a porous border between Afghanistan and 
Pakistan, illicit narcotics, and malign influences from other 
countries. Taken together, these threats to regional stability increase 
the level of difficulty in implementing the administration's strategy. 
However, the potential reemergence of al Qaeda or other extremist safe 
havens in Afghanistan and Pakistan are critical threats to our national 
security and to our allies, which make it all the more important that 
the administration's strategy is supported and implemented.
    Question. What is your assessment of the long-term prospects for 
Afghan military forces to effectively provide security throughout 
Afghanistan?
    Answer. The Afghan National Security Forces (ANSF) today 
(approximately 90,000 Afghan National Army (ANA) and 82,000 Afghan 
National Police (ANP)) is not of sufficient size to provide long-term 
security and stability for the people of Afghanistan. I believe the 
current authorized ANSF force levels (134,000 ANA and 96,800 ANP) 
should be reviewed on a periodic basis to ensure they are sufficient to 
support the country-wide security needs.
    Question. Do you believe that the current end strength targets of 
134,000 for the ANA and 96,800 for the ANP are sufficient or should 
those end strength targets be increased?
    Answer. I believe the current authorized ANSF force levels (134,000 
ANA and 96,800 ANP) should be reviewed on a periodic basis to ensure 
they are sufficient to support the country-wide security needs.
    There are two ongoing studies that will help inform our 
recommendations and decisions regarding the future size and 
capabilities of the ANSF. The European Community (EC) has commissioned 
a study, expected to be complete in mid-summer 2009, to assess the 
required capabilities of the Afghan National Police. The Secretary of 
Defense also directed a detailed analysis, led by CENTCOM and the Joint 
Staff, be conducted in order to help us make informed recommendations 
on options for future end-strength and capabilities for both the ANA 
and the ANP. This study with assessed courses-of-action is due back to 
the Secretary on July 29, 2009. If confirmed, I will use the results of 
both of these studies to make recommendations on the future size and 
capabilities of the ANSF.
    Question. What in your view are the major challenges for 
accelerating the growth of the ANSF, and how would you recommend 
addressing these challenges, if confirmed?
    Answer. The greatest international community challenge to 
accelerating the growth of the ANSF is the requirement for mentors for 
these forces. The greatest Afghan challenge is the development of 
leadership for the expanded force.
    The President's decision in March to deploy the 4/82 Brigade Combat 
Team (BCT) to provide additional mentors for the ANSF will allow us to 
meet our ANA embedded training team requirements for the 134,000 Army 
and will significantly increase the number of ANP police mentor teams. 
U.S. Counterinsurgency BCTs are also assuming responsibility for police 
mentors in districts within their battlespace. We must continue to 
encourage our North Atlantic Treaty Organization (NATO) partners to 
provide these district mentors in order to build synergy for security 
within the battlespace and increase the number of districts with police 
mentor coverage. I also recommend encouraging NATO to use the proposed 
NTM-A as an opportunity to enhance its training and mentoring of the 
ANP.
    Expanding the leadership capacity of the ANSF requires training and 
experience and both the ANA and ANP have leadership development 
programs in place. However, we must also recognize that leader 
development requires time and we must balance the pressing need for 
additional growth and progress in leadership with this reality in order 
to build forces that are self-sustaining over the long-term.
    Question. What should be the role of the ANA in preventing cross-
border attacks by extremist militants from Pakistan into Afghanistan?
    Answer. The Afghan Border Police (ABP) have primary responsibility 
for border security. The ANA provides direct support and support in 
depth to the ABP. Operational Coordination Centers (OCCs) are currently 
being established at the regional and provincial levels to improve 
information sharing and synchronization of efforts.
    Preventing all incursions is difficult due to the length and porous 
nature of the border. However, practical cooperation between Afghan, 
Pakistani, and international forces improves border security. Effective 
military operations along the Afghanistan-Pakistan border areas are key 
to disrupt and eventually deny safe havens to al Qaeda and the Taliban 
from which to launch these incursions.
    ISAF and USFOR-A must continue to enhance the practical cooperation 
between ANSF, Pakistani military, and international forces and increase 
the effectiveness of our counterinsurgency operations. Border and Joint 
Coordination Centers, regular tripartite engagements at all levels, and 
counterinsurgency training of Afghan and Pakistani forces are key to 
these efforts.
    Question. NATO has agreed to the establishment of a three-star 
command within the International Security Assistance Force (ISAF) 
command structure to oversee the day-to-day execution of the conflict.
    What is your assessment of the current U.S. and ISAF command 
structures in Afghanistan and what changes, if any, do you support to 
those command structures?
    Answer. General McChrystal has proposed a new combined and joint 
command that would direct the operations of the five regional commands. 
We are currently in the process of developing the proposed structure 
for this command with our NATO allies.
    General McChrystal and his staff are conducting an initial 
assessment and his recommendations will more specifically address the 
proposed operational command and any other structural changes.
    Question. Given the challenges that the topography of Afghanistan 
presents to operations, what are the unique challenges for which the 
United States needs new or modified equipment?
    Answer. The varying topography in Afghanistan limits freedom of 
movement for U.S. and coalition forces throughout the country which in 
turn affects movement of personnel and logistical resupply. The current 
influx of Strykers and additional fixed and rotary-wing assets into 
Regional Command (RC) South will improve freedom of movement within RC 
South and southern portions of RCs East and West but will have a 
limited impact on logistical support.
    The U.S. and coalition partners need a more robust capability to 
counter improvised explosive devices (IEDs). The employment of Mine 
Resistant Ambush Protected (MRAP) vehicles, uparmored Highly Mobile 
Multi Wheeled Vehicle (HWWMV), equivalent uparmored vehicles, and Route 
Clearance companies will improve survivability against IED attacks but 
the limited terrain clearance and power on these vehicles also limits 
their capability to traverse rugged terrain. Additional armored 
vehicles and Route Clearance companies will improve the number of IED 
finds and personnel survivability during IED attacks.
    The U.S. military is investing in improvements to air-delivery 
capabilities. Austere operating locations throughout Afghanistan do not 
support normal logistical resupply via surface or air movement. The 
United States needs an improved air-delivery capability and is 
accomplishing this by leveraging new technology on existing equipment 
in order to improve reliability and accuracy of fielded systems. 
Because of the topography, these improved systems are a critical 
requirement needed to meet the increasing logistical demands in 
Afghanistan.
    Question. In your view are there adequate intelligence, 
surveillance, and reconnaissance (ISR) assets available to support 
requirements in Afghanistan?
    Answer. It is our assessment that there are not enough ISR assets 
to support requirements in Afghanistan and those requirements are 
growing.
    There is a growing requirement for manned and unmanned aerial 
assets in Afghanistan used to support the NSC strategy and COMISAF's 
priority intelligence requirements. When employed effectively, these 
ISR assets are a combat-multiplier for U.S. and allied forces and are 
able to cue additional platforms for precise intelligence collection. 
Additionally, the data collected by these systems requires a large 
amount of processing which must be shared among ISAF, NATO, and other 
partners including Afghanistan and Pakistan.
    Question. What steps do you believe coalition forces and the 
international community need to take in the near-term to improve the 
lives of the Afghan people?
    Answer. We need to reassure the people of Afghanistan that 
coalition forces and the international community are committed to 
helping them develop their country on a long-term basis. In the near-
term, we are focused on providing security to the population which will 
allow us to progress in implementing development projects and building 
greater governance capacity in the long term.
    Question. News reports indicate that Afghan resentment over 
civilian deaths resulting from U.S. counterterrorism operations and 
U.S. or NATO airstrikes continues to grow.
    What steps, if any, do you believe ought to be undertaken to 
address the issue of civilian deaths in Afghanistan?
    Answer. In addition to the tragic loss of life, I and all the 
leadership are acutely aware of the negative repercussions resulting 
from civilian casualties. Any time an innocent person is killed our 
mission becomes harder and our men and women in Afghanistan fully 
understand this. We have procedures in place which seek to make every 
effort possible to avoid civilian casualties because our purpose is to 
protect the population. However, we are fighting an enemy who conducts 
operations specifically designed to produce casualties that can be 
attributed to coalition forces. As such, General McChrystal, as part of 
his initial assessment, is reviewing all tactical directives as they 
relate to avoiding civilian casualties.
    Question. From your perspective, what are the top lessons learned 
from our experience in Iraq and how would you apply these lessons in 
Afghanistan and future conflicts?
    Answer. It is important to realize that each conflict is different 
and you must apply strategies based on the current fight as it relates 
to the situation on the ground. Having said that I believe one of the 
greatest lessons learned from Iraq that can be applied to all conflicts 
is the multi-faceted approach to problem solving and issue resolution. 
Bringing together the best and brightest from across the spectrum of 
military, U.S. Government agencies and departments, as well as the 
leaders of industry, provides for the whole-of-government approach that 
when applied in concert with each other is very effective and dynamic.
                                pakistan
    Question. Administration officials have said that ``no 
improvement'' is possible in Afghanistan without progress in Pakistan, 
or that you can't succeed in Afghanistan without ``solving'' Pakistan.
    What in your view is the linkage between progress in Afghanistan 
and developments in Pakistan? Do you agree that the United States 
should be cautious about tying Afghanistan's future too closely to 
developments in Pakistan?
    Answer. Afghanistan and Pakistan stability are inextricably linked 
as extremist threats transcend regional boundaries. The strategy we 
have for Afghanistan and Pakistan is regionally focused in recognition 
of the fact that what happens in one country affects the other. 
Clearly, addressing extremist safe havens and cross border activities 
into Afghanistan from Pakistan is essential to success in Afghanistan. 
While we continue to enhance our bilateral relationship with each 
country based on its own merits we cannot ignore the historical, 
geographic, and economic ties between the two countries or the current 
security situation by de-linking Afghanistan's future from developments 
in Pakistan.
    Question. What is your assessment of Pakistan's commitment to 
confront the threat posed by al Qaeda, the Taliban, and other militant 
extremists in its western territory?
    Answer. Pakistan's leaders recognize that extremist groups pose a 
great threat to Pakistan's national security. However, Pakistan must 
take sustained action, including engaging extremist groups within its 
borders and following operations with humanitarian assistance, in order 
to mitigate this threat. Recent operations in the North West Frontier 
Province are a promising start, and we are watching closely to see 
whether these operations are sustained and continued effectively into 
other extremist areas in western Pakistan. U.S. leaders engage 
regularly with the Government of Pakistan to convey both our concern 
about these threats and our political support and we are augmenting 
their efforts through military and economic assistance.
    Question. Do you agree that in order for U.S. military assistance 
to Pakistan to be effective, Pakistan's leadership must make it clear 
to the Pakistani people that confronting the threat poised by al Qaeda, 
the Taliban, and other militant extremists is essential for the sake of 
Pakistan's own security interests?
    Answer. Indications from Pakistan senior leadership and outside 
observers are that Pakistan's military operations along the border 
currently have support of the Pakistani population as the Pakistani 
people are becoming increasingly aware of the threat poised by militant 
extremists. Clearly, it is important for the Government of Pakistan and 
the Pakistan military to have support of the population for these 
operations, and without it U.S. military assistance could not be as 
effectively employed. We also understand that the population needs to 
see a whole-of-government approach to the problems Pakistan faces or 
support for the government and military operations could erode. Our 
broad assistance efforts support this by not only improving Pakistan's 
military/security capabilities, but also assisting the Government of 
Pakistan to improve education, agriculture, job creation and long-term 
economic development, as well as governance, in order to improve the 
lives of the Pakistani people.
    Question. The Intelligence Community assesses that Pakistan's 
Federally Administered Tribal Areas along the border with Afghanistan 
provide a safe haven for al Qaeda and other extremists supporting the 
Taliban led insurgency in Afghanistan.
    In your view, should the Pakistan Government be doing more to 
prevent these cross border incursions, particularly across the border 
between Baluchistan, Pakistan, and Kandahar Afghanistan?
    Answer. The Pakistan Government and security forces face many 
challenges along the border including rugged terrain and isolated 
regions, lack of capacity and capability for conducting 
counterinsurgency and border operations, as well as a population in 
this region that has historically been autonomous and independent from 
central rule. U.S. senior military and government leadership 
continually engage with Pakistani counterparts on the importance of 
preventing cross-border activities and on ways that U.S./coalition, 
Afghanistan, and Pakistan can work together to improve border security. 
We have seen improvements in this cooperation though we have not yet 
achieved the level of effectiveness we need to reduce extremists' 
abilities to cross into Afghanistan and conduct operations.
    Question. What is your assessment of the current level of 
cooperation between Afghanistan and Pakistan in confronting the threat 
of militant extremists in the border region?
    Answer. The relationship between the Governments of Afghanistan and 
Pakistan has improved significantly from just a few years ago and the 
leadership of both countries continues to engage in discussion and 
broadening the relationship and cooperation. This cooperation also 
occurs at the lower levels through border coordination and other 
activities to meet the extremist threats in the border region. There is 
more that can be done and the United States continually works to 
facilitate and improve the cooperation between these two countries and 
with the coalition on the Afghanistan side of the border.
         joint improvised explosive device defeat organization
    Question. The Department has taken inconsistent positions on the 
disposition of ad hoc, but critical, entities created to respond to the 
urgent needs of combat forces in Iraq and Afghanistan. The Secretary of 
Defense has recently stated in testimony before the Senate 
Appropriations Committee, Subcommittee on Defense, that the ISR task 
force should be phased out, while at the same time, the Department has 
decided to institutionalize Joint Improvised Explosive Device Defeat 
Organization (JIEDDO). Some have expressed concern about the possible 
hasty demise of the ISR task force, and others have expressed concern 
about the premature decision to make JIEDDO permanent. While the JIEDDO 
reports to the Deputy Secretary of Defense, the Office of the Joint 
Chiefs of Staff plays an active role in reviewing and validating urgent 
operational needs emerging from Iraq and Afghanistan.
    What are your views of JIEDDO and its role within the Department 
and within the Department's process for responding to urgent 
operational needs?
    Answer. The JIEDDO is effective in its mission to lead, advocate, 
and coordinate the Department's C-IED efforts in support of combatant 
commanders. They are a highly valued capability that continues to 
demonstrate the agility to respond quickly to urgent operational needs 
by providing essential material and nonmaterial solutions to counter 
known, newly deployed, and emerging IED threats.
    Question. What are your views of the criteria the Department is 
using to determine which institutions should become permanent and which 
should not, and to demonstrate how these criteria arc being 
consistently applied across organizations?
    Answer. Organizations are often created in response to shortfalls 
identified by combatant commanders. There are several venues, including 
Senior Warfighter Forums and Deputies Advisory Working Groups (DAWG), 
to review and make recommendations to the Department leadership as to 
whether an organization should become permanent. In the case of JIEDDO, 
the C-IED SWarF and the DAWG concluded that the nature of the IED 
threat and continued combatant commanders' need for rapid solutions 
necessitated an enduring organization with the agility to rapidly 
respond to changing urgent operational needs. I will recommend the ISR 
Task Force be included until such time as warfighter needs can be met 
by such programs.
                            counternarcotics
    Question. Recently, senior U.S. Government officials have indicated 
that the United States will begin to increase alternative crop 
development, public information, and interdiction programs, rather than 
continuing or expanding ongoing eradication efforts. This has been 
viewed as a u-turn of the U.S. counternarcotics strategy in Afghanistan 
and has been greeted with skepticism from some senior Afghan officials.
    What is your view of this ongoing change in strategy?
    Answer. I understand the U.S. Government's intent to rebalance its 
counternarcotics strategy and I support this effort because I don't 
think that crop eradication alone is the right approach. I believe we 
need a multi-pronged approach that targets laboratories, traffickers 
and movement of drugs, and facilitators at the same time we work to 
provide alternative income opportunities for farmers.
    Question. What is your assessment of the eradication policy the 
United States has pursued in recent years?
    Answer. The efforts of the U.S. Government to support and fund the 
Afghan Government's eradication efforts have shown little success. The 
funding and energy for eradication programs should be redistributed to 
other counternarcotics activities that have proven far more successful 
such as interdiction, public information, and alternative development.
    Question. Do you believe that this shift in policy is adequately 
resourced?
    Answer. If the resources dedicated to the elimination pillar of the 
U.S. counternarcotics strategy were redistributed to interdiction, rule 
of law, public information, and alternative development this would be a 
step in the right direction. However, General McChrystal is currently 
conducting an initial assessment for the Secretary of Defense, and I 
would defer to the outcome of his assessment to determine if the shift 
in counternarcotics policy is adequately resourced.
    Question. What role do you believe DOD will play in each component 
of the new strategy?
    Answer. The same roles will be played by DOD in the four pillars 
that do not involve poppy elimination: public information, 
interdiction, alternative development, and rule of law. DOD currently 
supports the poppy elimination pillar through the development, 
training, and deployment of the Counternarcotics Infantry Kandak 
(CNIK), and provides in-extremis support to poppy eradication 
activities when insurgents use violence to react to eradication 
missions. If U.S. Government support to Afghan Government eradication 
activities ends, the CNIK will be reintegrated into the ANA and in-
extremis support to Afghan Government eradication efforts will have to 
be reviewed on its contribution to the counterinsurgency mission.
    A nexus exists between narcotics and the insurgency as well as 
corruption and criminality. Recent decisions by the NATO Defense 
Ministers and the Secretary of Defense, at the request of the Afghan 
Government, provided the guidance and authorities for both ISAF forces 
and the U.S. military to target the trafficking and production of 
narcotics where the nexus exists. Additionally, the recent change to 
DOD's international counternarcotics policy enabled more robust support 
and integration of capabilities with civilian law enforcement agencies 
operating in Afghanistan.
                         counterdrug operations
    Question. DOD expends more than $1 billion per year in the fight 
against illegal narcotics trafficking. For much of the last 2 decades, 
the fight against illegal narcotics has taken place within the Western 
Hemisphere, but in recent years, counternarcotics operations have 
expanded to Afghanistan, West Africa, and Asia. U.S. commanders in 
Afghanistan have identified success against narcotics traffickers as 
fundamental to the success of their mission to root out the Taliban and 
al Qaeda. Despite this expanding focus to other parts of the globe and 
the focus of U.S. commanders in Afghanistan, the Department often views 
counternarcotics operations as the job of Federal law enforcement 
agencies.
    Please discuss your views of the DOD's counternarcotics mission and 
the tension that exists within the Department about the proper role of 
the military.
    Answer. DOD is the lead Federal agency for the detection and 
monitoring of aerial and maritime transit of illegal drugs into the 
United States (title 10, U.S.C. 124). We play a valuable role in 
support of the counterdrug activities of Federal, State, local, and 
international partner law enforcement agencies through entities such as 
Joint Task Force-North, a component of U.S. Northern Command located in 
El Paso, TX; Joint Interagency Task Force-South located in Key West, 
FL; Joint Interagency Task Force-West located in Hawaii. DOD is a full 
partner in numerous interagency counterdrug and intelligence and 
operational ``fusion centers'' located throughout the country including 
the El Paso Intelligence Center and the Office of National Drug Control 
Policy's High Intensity Drug Trafficking Areas. In addition, DOD 
supports 54 State and territorial counterdrug task forces through the 
National Guard's Counterdrug Governors State Plans (32 U.S.C. 112). The 
focus of these 2,600 National Guard soldiers and airmen is to leverage 
DOD resources and unique capabilities and to act as catalysts to better 
coordinate State and local law enforcement efforts with those of the 
Federal Government in attacking both the supply and demand for illicit 
drugs in our Homeland.
    I do not believe there is tension within the Department about the 
proper role of the military. DOD has a responsibility to ensure our 
military members support interagency activities that adhere to 
constitutional and legal restrictions, add measurable value to our 
whole-of-government counterdrug efforts, and enhance the readiness of 
our military and civilian members.
                                colombia
    Question. What changes, if any, would you recommend for the role of 
the U.S. military in Colombia?
    Our relationship is maturing from patron to partner, and Colombian 
gains against illegally armed groups approach ``irreversibility'' (the 
point at which illegally armed groups are controllable by the police 
rather than the Armed Forces). Nonetheless, I would not, at this time, 
recommend a role change for the U.S. military in Colombia. Rather, we 
must continue to vigorously apply U.S. resources, to include high 
demand/low density assets that fill critical capability gaps, while 
further enabling the development of military institutions that will 
strengthen a nascent strategic partner. DOD's security assistance 
effort will remain completely synchronized with the U.S. Ambassador's 
Colombia Strategic Development Initiative.
    What is your assessment of the progress achieved by the Colombian 
armed forces in confronting the threat of narcoterrorism?
    Answer. The Colombian armed forces successes against narco-
terrorists under the Uribe Administration are unquestionably 
significant, with tens of thousands of paramilitaries demobilized, the 
National Liberation Army no longer a relevant threat, and the 
Revolutionary Armed Forces of Colombia reduced by nearly 50 percent. 
However, although approaching the tipping point of ``irreversibility,'' 
more progress is required. Our security assistance must not stop at the 
10-yard line, but rather ensure the Colombians cross the proverbial 
goal line.
                                  iran
    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the Middle East region?
    Answer. Clearly, Iran an important, yet troubling, regional actors 
with regard to Iraq, Afghanistan, Lebanon, Gaza, and the remainder of 
the broader Middle East region. We fully support the administration's 
current approach of attempting to initiate engagement with Iran, 
essentially offering an unclenched fist. Should Iran choose to not 
accept these overtures, I believe it will be necessary to deliberately 
increase pressure in a carefully executed progression that includes a 
broad spectrum of partners. I also believe that our efforts at 
engagement only increase the likelihood that our partners will increase 
their pressure in concert. This increased pressure must begin with 
diplomatic and economic initiatives with regard to Iran, to include 
U.N. actions (both sanctions and financial measures), regional 
initiatives, and other forms of international pressure.
    We also fully support the Department of State's Gulf Security 
Dialogue (GSD) initiative to reassure our regional partners, including 
military aspects such as capacity building, border security, missile 
defense, and proliferation security initiatives. The GSD seeks to 
reassure our regional partners of U.S. commitment, change Iran's 
strategic calculus, and stop Iranian nuclear proliferation and 
sponsorship of terrorist organizations. The GSD seeks to bolster the 
capabilities of our regional partners (with the United States and 
others) to deter and defend against conventional and unconventional 
threats. It includes arms sales and other forms of assistance to 
include improving port security and protecting the key energy 
infrastructure of our regional partners and allies.
    Question. Do you believe that a protracted deployment of U.S. 
troops in Iraq or Afghanistan could strengthen Iran's influence in the 
region?
    Answer. The size and duration of U.S. and coalition force 
deployments are dependent on a number of factors, principally focused 
on the progress of security, development, and governance within those 
two countries. Moreover, we have clear guidance on conducting a 
responsible drawdown from Iraq, which is executing on time. While our 
presence in Iraq and Afghanistan is not oriented towards Iran, the 
surest way to ensure Iran's influence in the region is measured and 
positive is to enable capable and confident states within the entire 
region, including Iraq and Afghanistan.
    Question. In your view, does Iran pose a near-term threat to the 
United States by way of either its missile program or its nuclear 
program?
    Answer. Open source reporting indicates that the U.S. Government 
does not expect Iran to have a nuclear weapons capability until mid to 
next decade (2010 to 2015). Open source reporting indicates that Israel 
assesses that Iran could have a weapon by late 2009. Iran does have the 
capability with their arsenal of short-, medium-, and intermediate-
range ballistic missiles to threaten U.S. friends and allies in the 
region. Their multiple recent weapons tests and successful launch of a 
satellite earlier this year are indications of their advances in 
missile technology.
    While these programs will not threaten the Homeland in the near-
term, acquisition of nuclear weapons and missile delivery capabilities 
will embolden Iran to further threaten U.S. and partner interests in 
the region. These threats include Iranian use of proxies in 
Afghanistan, Lebanon, Palestinian territories, on the African 
continent, and even in the tri-border region of South America for 
example. Ultimately, these capabilities could directly threaten the 
United States.
    Question. If you believe either of these programs pose a near-term 
threat, what in your view are the best ways to address such a threat?
    Answer. As I stated earlier, we want to continue to support the 
current diplomatic initiatives with regard to Iran, to include U.N. 
actions, regional initiatives, financial measures, and other 
international pressure. We encourage Iran to fulfill its responsibility 
with regard to international agreements to the Nonproliferation Treaty 
and the additional protocol. (Background: The Nonproliferation Treaty 
is an international treaty signed in 1968 to limit the spread of 
nuclear weapons. Iran is a signatory.)
    Question. Other than nuclear or missile programs, what are your 
concerns, if any, about Iran?
    Answer. Malicious Iranian activities throughout the region include 
the use of proxies to extend Iranian influence into sovereign nations 
by providing weapons, technology, training, and finance. We are 
concerned Iran's activities will negatively impact stability and 
potentially impact the regional economy. It is important to maintain 
and strengthen our relationships with our regional partners and allies 
by continuing to build their security capacity. We will continue to 
work in close coordination with all applicable U.S. Government 
departments to ensure our policies toward Iran assume a regional 
approach.
    Question. What concerns, if any, does the election related unrest 
in Iran raise from a military perspective?
    Answer. We are concerned that the growing strength of Iran's 
Islamic Revolutionary Guard Corps over Iranian politics will result in 
the militarization of Iranian foreign policy. Nonetheless, we do not 
project any significant changes to Iran's overall foreign policy 
objectives. However, should the political unrest continue, it is 
possible that Iran could attempt to create an incident or other crisis 
that would draw its population's attention away from internal strife 
and towards a perceived common threat. Our forces are acutely sensitive 
to the need to avoid such an incident or crisis.
                        strategic communications
    Question. Over the past few years, DOD has funded a growing number 
of counterterrorism and counterradicalization strategic communications 
programs. DOD does not have a separate budget outlining its strategic 
communication activities, but the GAO reports that DOD ``spent hundreds 
of millions of dollars each year'' to support its information 
operations outreach activities, including recent initiatives funded by 
the JIEDDO and geographic COCOMs. Many of these ongoing programs are in 
support of operations in Iraq and Afghanistan, but Military Information 
Support Teams from United States Special Operations Command are also 
deploying to United States embassies in countries of particular 
interest around the globe to bolster the efforts of the Department of 
State and the U.S. Agency for International Development (USAID).
    What are your views on DOD's strategic communications role and its 
integration into overall U.S. foreign policy objectives?
    Answer. Strategic communication--the process of orchestrating our 
actions, images, and words to achieve U.S. objectives--is a critical 
component of DOD's activities in support of national security. However, 
the Department of State is the designated lead for U.S. Government 
strategic communication efforts, and in conjunction with the National 
Security Council, identifies the key national objectives for strategic 
communication engagement. DOD strategic communications efforts support 
these national priorities. We believe they have been particularly 
effective in Iraq, and we are determined to improve our efforts in 
Afghanistan. It's my view that U.S. foreign policy goals are best 
accomplished through whole-of-government efforts focused on engaging 
and listening to target audiences, then acting and communicating those 
actions in a manner that promotes our shared interests with the world. 
Strategic communication is vital in ensuring that our Department's 
activities support these higher-level policy objectives.
    Question. What is your view of the apparently expanded role of the 
U.S. military in supporting U.S. strategic communications programs led 
by the State Department and the USAID in countries other than Iraq and 
Afghanistan?
    Answer. I believe this is a good news story that highlights our 
emphasis on security, diplomacy, and development. DOD has a long 
history of providing support to the Department of State and USAID 
programs worldwide and will continue to support country teams and the 
interagency wherever and whenever appropriate. I'm satisfied with the 
expanded role but need to emphasize that a whole-of-government approach 
is required for the programs that we support and DOD's resources are 
not limitless. Nevertheless, we do have significant resources and 
capabilities which reinforce and enhance State's and USAID's efforts. 
These resources and capabilities, together with the personnel who have 
the skill sets, are critical to our programs led by the State 
Department and USAID as part of the national strategic objectives for 
any particular country or region.
                       u.s. relations with russia
    Question. U.S. relations with Russia, although strained over a 
variety of issues, have recently improved in some areas. If confirmed, 
do you believe that there are any opportunities to improve relations 
through military-to-military programs, or other actions that you would 
recommend be taken?
    Answer. President Obama is establishing a positive working 
relationship with Russian President Medvedev, which contributes 
immensely toward resetting our relations with Russia. This will afford 
us excellent opportunities to make headway in the realm of military 
cooperation. Both sides realize that the military-to-military 
relationship is a pivotal and stabilizing element to the broader 
bilateral security relationship. CJCS and the Russian Chief of Defense 
signed a Military Work Plan during the 6-7 July Presidential Summit in 
Moscow which contains events that will allow us to construct a more 
robust working relationship. We have agreed with our Russian 
counterparts to focus our exercise and training Work Plan on areas of 
cooperation to include counterpiracy operations, combating terrorism, 
missile defense, search and rescue, and maintaining peace in unstable 
regions. In addition, we seek to establish direct counterpart 
relationships between the Joint Staff and Russian General Staff that 
can facilitate issue mitigation.
    Question. You have testified before this committee and spoken on 
the potential for missile defense cooperation with Russia. What are the 
first steps that could be take in this area?
    Answer. I believe there is great potential to cooperate with Russia 
on missile defense. I would not want to speculate at this time on what 
specific cooperative programs our countries could develop, as we 
currently have an internal governmental review on missile defense 
underway and our consultations with the Russians are in the 
developmental stage. I can envision that opportunities to cooperate on 
missile defense could begin with more detailed transparency, 
information exchanges, and exercises.
    Over the past 3 months, the United States and Russia have discussed 
opportunities to increase transparency through the exchange of 
ballistic missile warning information. The Joint Data Exchange Center 
(JDEC) was conceived as a way for both countries to work together to 
reduce risk of a false attack warning. A JDEC Memorandum of Agreement, 
originally signed in June 2000 by former Presidents Clinton and Putin, 
pledged to establish a joint operations center to be manned by both 
Russian and U.S. officers.
    In May of this year, Ambassador Steve Mull led a U.S. delegation to 
Moscow and expressed our desire to implement the JDEC agreement as an 
important step towards greater cooperation. We are hopeful the final 
details will be addressed between our two nations within the coming 
months so we can move forward.
    Continuation of exercises such as the U.S.-Russian Missile Defense 
Cooperation Program would be a reasonable expectation, though I do not 
expect that it would resume this year. This program began in 1996 and 
has resulted in six major U.S.-Russian Federation exercises being 
conducted during the last 12 years in both the United States and in 
Russia. Since U.S. and Russian Federation experts last met in July 
2007, the U.S. delegation has also continued to work on developing a 
U.S.-Russian Federation wargame to be hosted in the United States. This 
wargame was developed with the concept of working issues related to a 
simulated U.N. agreement to support a friendly nation under missile 
threat from a neighboring possible hostile country. The wargame was for 
U.S. and Russian Federation forces to work the deployment, employment, 
and sustainment of their missile defense forces in this simulated 
theater. Such cooperative projects have proven to be very constructive 
to our mutual security objectives and could represent the initial 
stages of what could be done.
    Question. In your view, what are the specific actions that could be 
taken in other areas such as space and where would additional 
cooperation be beneficial?
    Answer. DOD has worked closely with the State Department to engage 
the Russian Federation in the United Nations Committee on the Peaceful 
Uses of Outer Space (COPUOS). Efforts focus on initiatives we term 
``Transparency and Confidence Building Measures'' or TCBMs. TCBMs 
attempt to preserve the space environment and ensure safe and 
responsible operations for the benefit of all space-faring nations. 
With Russian support, an agreement was reached within the past few 
years in the COPUOS on ``Space Debris Mitigation Guidelines''. These 
voluntary measures will reduce the amount of debris created by newly 
launched satellites and boosters, significantly increasing space flight 
safety.
    The United States and Russia have also been engaged in cooperative 
civil space applications in human and robotic space flight, space 
science, space applications and technologies, and the monitoring of the 
global environment. Cooperation between the Russian Federal Space 
Agency and NASA is especially close with regard to the resupply, 
operations, and maintenance of the International Space Station. This 
cooperation will become even more critical in the coming years with the 
stand-down of the shuttle fleet.
    As we move forward, the Department continues to explore 
opportunities for cooperation in space. This issue is a specific focus 
area to be addressed as part of the congressionally-directed Space 
Posture Review.
    Question. Recent NATO exercises in Georgia and upcoming Russian 
regional exercises have continued the high level of tension. In your 
view, what steps should the U.S. military take to train and supply 
Georgia, without further escalating tensions between Georgia and 
Russia?
    Answer. Like Russia, the United States engages in military 
exercises and security cooperation with a broad range of allies and 
partners in order to enhance our abilities to cooperate in operational 
missions and to support their aspirations to become contributing 
members to Euro-Atlantic security. These are also necessary and prudent 
courses of action to address the myriad security challenges we and our 
allies face in the foreseeable future. That said, we are committed to 
regional peace and stability and will continue to emphasize 
transparency and enhanced communication in our military cooperation 
efforts with both Russia and Georgia. We are also grateful that Georgia 
has offered to participate in the International Assistance Force in 
Afghanistan.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207).
    What should be our strategic objectives in building the capacities 
of partner nations?
    Answer. Building foreign partner capacity is fundamental to our 
security strategy and will remain so for decades. Its most immediate 
impact is to enable many of our partners to counter extremist groups 
that threaten their stability and that may present a direct threat to 
the United States. It is critical to support and enable our 
partnerships with other U.S. Government agencies and key allies and 
friends abroad in order to improve policy, planning, and execution of 
national and homeland security missions. It also reinforces with our 
partners the notion of civilian control of the military.
    Question. What is your assessment of these temporary capacity-
building authorities, in particular section 1206 and section 1207?
    Answer. We are grateful for these authorities, and there are 
countless examples of their effectiveness. Although created in response 
to particular contingencies, these programs have proven useful in 
putting the U.S. Government on a stronger, more flexible security 
footing. They remain an absolutely vital tool cited by combatant 
commanders, and I hear repeatedly from them how important dependable 
authority and funding is for them to be able to adequately plan their 
theater security cooperation activities. Specifically these 
authorities:

        <bullet> Save lives and reduce stress on our forces by helping 
        partners solve problems before they become crises requiring 
        U.S. military interventions.
        <bullet> Create networks of partners. The United States does 
        not have sufficient military forces to deny terrorists 
        sanctuary everywhere in the world; nor will we ever. So we must 
        rely on partners; help build their capacity; and help create 
        networks of partners working together to counterterrorism. It 
        takes networks to defeat networks.
        <bullet> Capitalize on partner capabilities. If properly 
        trained and equipped, foreign forces can be more effective than 
        U.S. forces because they know the language, politics, and human 
        terrain.
        <bullet> Reduce U.S. footprint. Large U.S. military footprints 
        abroad can be used by the enemy as a recruiting tool. Capable 
        foreign forces can alleviate large U.S. footprints.
        <bullet> Reduce terrorist capability. The United States is at 
        peace with many countries where terrorists enjoy sanctuary, so 
        we must work with and through them to reduce terrorist 
        capability.

    Question. What should be the relationship of the global train and 
equip authority to other security assistance authorities, such as DOD 
counternarcotics assistance and State Department foreign assistance and 
foreign military financing?
    Answer. The authorities mentioned above all contribute to national 
security through building partner capacity, each with its own unique 
benefits and applications. We fully intend to apply these programs as 
designed.
    Secretary Gates has been a strong and vocal proponent of DOD's 
authorities for building partnership capacity. Because Congress 
requires the Secretary of State and Secretary of Defense to jointly 
formulate and implement projects, both 1206 and 1207 have served as 
instruments of interagency cooperation--bringing State, USAID, and DOD 
together in applying a strategic, ``3D'' lens to country assistance. 
The different perspective each organization brings helps the U.S. 
Government look at country assistance holistically and place country-
specific requirements in a broader regional and global context. As 
such, I see an enduring need for a flexible, responsive program that 
requires all ``3Ds'' to craft innovative country assistance programs 
designed to prevent or respond to crises.
                     integration of space programs
    Question. What is your view on the need to institute a more 
integrated approach to both the military and intelligence sides of the 
space community?
    Answer. I agree strongly with the need to integrate military and 
intelligence space capabilities. Members of both communities 
participate in a number of joint bodies; we are jointly developing 
programs, and at senior levels have very integral relationships. 
However, when the needs of either diverge to the extent that solutions 
impose impractical cost on the government, consideration should be 
given to potential independent complimentary solutions.
    Question. The Air Force is also working on space programs with 
civilian agencies and there may be the opportunity or the need for 
additional cooperative programs. The National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program is the 
subject of a very critical review that fundamentally questions whether 
cooperation is workable.
    What are your views on the future of interagency space programs?
    Answer. I support interagency space programs as we continue to look 
for efficiencies. We must be pragmatic about finding common ground that 
will allow all stakeholders to affordably reach a good enough solution.
                        space program management
    Question. In many instances the military and intelligence space 
programs have experienced technical, budget, and schedule difficulties. 
In some instances these difficulties can be traced to problems with 
establishing realistic, clear, requirements and then maintaining 
control over the integrity of the requirements once established.
    How in your view can or should the space systems requirements 
process be improved?
    Answer. While encouraged by the improvements that have been made to 
space system requirements and acquisition process over the last several 
years, the space systems requirement process could be further improved 
with additional collaboration and coordination between the JROC and the 
DNI's Intelligence Resources Board. This would result in increased 
vigilance and scrutiny of the space requirements process. Additionally, 
where appropriate, adoption of commercial practices could help reduce 
the requirements approval time.
    Question. In many circumstances space programs take many years from 
conception to launch. The result is that the technology in the 
satellites is significantly outdated by the time the satellites are 
launched and operational, which in turn, can lead to a decision to 
terminate a program early, and look to a newer technology. This vicious 
cycle results in significantly increased costs for space systems as 
sunk costs are never fully amortized.
    How in your view can this cycle be addressed?
    Answer. This cycle can be addressed by reducing the complexity of 
spacecraft and lift vehicles, designing smaller, lighter single-purpose 
satellites rather than complex multi-purpose satellites which must be 
suboptimized to perform a variety of missions, by adopting commercial 
practices to streamline the design and manufacturing process and by 
pursuing a ``block build'' strategy that allows for infusion of new 
technology as programs progress.
                     operationally responsive space
    Question. Do you support the concept of operationally responsive 
small satellites and what do you see as the most promising 
opportunities for small satellites?
    Answer. Yes. The concept can rapidly provide space capabilities to 
the emergent or near-term needs of the warfighter in a rapidly changing 
environment. This will enable the warfighter to integrate space 
capabilities when and where needed to produce the desired effect.
                          prompt global strike
    Question. As Commander, U.S. Strategic Command, you made 
development of a conventional, non-nuclear, prompt global strike 
capability a priority, and you have carried that priority into your 
current position.
    What is your vision of the capability that should be developed for 
prompt global strike and the types of targets that would underpin the 
need to develop the capability?
    Answer. The capability should be one that provides for prompt 
execution, precise targeting, lethal conventional effects, and 
sufficient range to hold time-sensitive or inaccessible targets at 
risk, from U.S. operating locations. Prompt global strike should also 
serve as an alternative to comparable nuclear weapons, particularly 
where the use of nuclear weapons would be inappropriate.
                   current nuclear weapons stockpile
    Question. In your view is the current nuclear weapons stockpile 
safe, secure, and reliable?
    Answer. Yes. As part of the 2008 annual report to the President on 
stockpile assessments, the directors of the national laboratories and 
the Commander, U.S. Strategic Command reported on the safety, 
reliability, performance, and military effectiveness of the nuclear 
weapons stockpile. They are confident the nuclear stockpile is not only 
safe but will perform as intended. I share their opinion, however we 
must now begin the investment necessary to ensure the same levels of 
safety, security, and reliability in the future.
    Question. As Commander of U.S. Strategic Command, and now as a 
member of the Nuclear Weapons Council, you work closely with the 
National Nuclear Security Administration and its stockpile stewardship 
program.
    What, in your view, are the longer-term stockpile stewardship goals 
and what are the key elements that should be addressed from a DOD 
perspective?
    Answer. Without a doubt, the key to sustaining our nuclear weapons 
capabilities is to gradually replace our existing legacy warheads with 
modernized warheads of comparable capability with greater safety, 
security, and reliability. Additionally, modernized warheads should be 
less sensitive to manufacturing tolerances or to aging of materials. To 
do this, we must begin now to transform the supporting nuclear weapons 
research, development, and manufacturing infrastructure.
    Question. In your view, is the stockpile stewardship program 
providing the tools to ensure the safety, reliability, and security of 
the nuclear weapons stockpile without testing, and if not, what tools 
are needed?
    Answer. To date, the stockpile stewardship activities have enabled 
us to maintain a safe, reliable, and secure stockpile without testing. 
However, confidence in the overall reliability and military 
effectiveness of the nuclear stockpile continues to decline due to 
aging, the accumulated effects of weapon changes, and discoveries of 
various anomalies in the weapons. As I stated earlier, we need to 
invest in modernizing both our infrastructure and the stockpile. 
Consistent with the recommendation from the Strategic Posture 
Commission, we can best manage risk in ensuring the surety of the 
stockpile for the future by applying a spectrum of options that 
includes warhead refurbishment, warhead component reuse, and warhead 
replacement. Refurbishment alone remains an important near-term option 
but is insufficient to manage our long-term risk. While a mid-term 
reuse strategy can enable limited improvements in reliability and 
surety, replacement allows for the greatest flexibility in achieving 
the required reliability and surety characteristics for the future. 
However, we must have a fully responsive research, development, and 
production complex that allows warhead replacement in order to achieve 
these surety and reliability gains.
                     reductions in nuclear weapons
    Question. The President has made a commitment with Russian 
President Medvedev to bilaterally reduce the number of operationally 
deployed nuclear warheads.
    Do you believe reductions in the total number of warheads, both 
reserve and operationally deployed, are feasible?
    Answer. The United States has made a commitment to reduce nuclear 
weapons and their role in our national security strategy, and to 
strengthen our nonproliferation treaties. The military supports these 
commitments. So long as DOD and DOE are able to take the necessary 
actions to ensure that the nuclear arsenal we keep remains safe, 
secure, and effective, then reductions are possible within mutually 
agreed limitations.
    Question. Do you believe reductions in the total number of START 
accountable delivery systems could also be reduced in a bilateral 
context?
    Answer. Yes.
    Question. If your answer to the two questions above is yes, how 
should capabilities and requirements be evaluated to identify which 
warheads and delivery systems could be retired and dismantled?
    Answer. The NPR is currently underway and will analyze and make 
recommendations to senior leaders as to the appropriate nuclear weapons 
mix and force structure necessary to carry out the nuclear mission 
within our national security strategy.
    As directed by Congress, the NPR is a comprehensive review of:

          (1) The role of nuclear forces in U.S. military strategy, 
        planning, and programming.
          (2) The policy requirements and objectives for the United 
        States to maintain a safe, reliable, and credible nuclear 
        deterrence posture.
          (3) The relationship among U.S. nuclear deterrence policy, 
        targeting strategy, and arms control objectives.
          (4) The role that missile defense capabilities and 
        conventional strike forces play in determining the role and 
        size of nuclear forces.
          (5) The levels and composition of the nuclear delivery 
        systems that will be required for implementing the U.S. 
        national and military strategy, including any plans for 
        replacing or modifying existing systems.
          (6) The nuclear weapons complex that will be required for 
        implementing the U.S. national and military strategy, including 
        any plans to modernize or modify the complex.
          (7) The active and inactive nuclear weapons stockpile that 
        will be required for implementing the U.S. national and 
        military strategy, including any plans for replacing or 
        modifying the warheads.
            united nations convention on the law of the sea
    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea?
    Answer. I strongly support the U.S. accession to the United Nations 
Convention on Law of the Sea. The United States is the only permanent 
member of the U.N. Security Council and the only Arctic nation not a 
party to the Convention. With 157 nations party to the Convention, we 
are one of very few non-party nations, together with North Korea, Iran, 
Syria, and Venezuela.
    The Convention codifies navigational rights and freedoms that are 
essential to the global mobility of U.S. Armed Forces and the 
sustainment of combat forces overseas. Moreover, the Convention 
codifies the right of warships to seize pirates and pirate vessels, the 
right of warships to approach and visit commercial vessels, the right 
to lay and maintain submarine cables (such as internet cables) on 
foreign continental shelves, and the sovereign immunity of warships and 
public vessels. Joining the Convention now allows us to ``lock in'' 
these rights and freedoms and puts us in the best position to protect 
them against encroachment from foreign coastal states.
    Question. How would you answer the critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. Our nonparty status is currently having a negative impact 
on the national security interests of the United States. It creates a 
seam in combined operations, denies us a ``seat at the table'' when the 
parties interpret or seek to amend the Convention, and requires us to 
rely on customary international law as the legal basis for our 
activities in and above the maritime domain. It is adversely affecting 
our ability expand the Proliferation Security Initiative, and our 
ability to effectively counter the People's Republic of China's sea 
denial strategy in the East and South China Seas, which is based on a 
distorted interpretation of the Convention. In contrast, accession to 
the Convention, the bedrock legal instrument for maintaining order in 
the maritime domain, will support our security strategy of building and 
sustaining a coalition of nations dedicated to the rule of law. Nothing 
in the Convention undermines our ability to conduct military 
operations; rather, the provisions of the Convention reinforce our 
international mobility, operational flexibility, and optimize the 
protection of our national security interests.
                         treatment of detainees
    Question. The Constitution, laws, and treaty obligations of the 
United States prohibit the torture or cruel, inhuman, or degrading 
treatment or punishment of persons held in U.S. custody.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces fully comply with the requirements of section 1403 and 
with Common Article 3 of the Geneva Conventions?
    Answer. Yes, I will. The U.S. military is firmly committed to the 
proper safeguarding and care of detainees in our custody. We will 
ensure that our policies, practices, and procedures are in accordance 
with domestic law and our obligations under international law and the 
Geneva Conventions.
    Question. Do you support the standards for detainee treatment 
specified in the Army Field Manual on Interrogations, FM 2-22.3, issued 
in September 2006, and in DOD Directive 2310.01E, the DOD Detainee 
Program, dated September 5, 2006?
    Answer. Yes. I do support the standards outlined in the documents 
you quote and I will ensure that we continue to operate a safe, humane, 
legal, transparent, and professional enemy combatant detention 
operation that adheres to our obligations under U.S. and international 
law, and reflects the highest standards and values of the American 
people.
                       ballistic missile defense
    Question. Secretary Gates has stated on a number of occasions that 
he believes there is potential for cooperation between the United 
States and Russia on missile defense, and Russia has suggested the idea 
of sharing early warning and surveillance data from its Garbarla radar 
in Azerbaijan, and its Armavir radar in southern Russia.
    What do you believe is the potential for U.S.-Russian cooperation 
on missile defense, and are there steps you believe we should explore 
with Russia?
    Answer. The United States is committed to working with Russia on a 
range of issues, including missile defense. Our experts are exploring 
cooperative opportunities that would complement our missile defense 
architecture. The radars Secretary Gates mentions would provide helpful 
information for early ballistic missile warning detection in the event 
of an Iranian missile attack. The Department will continue to work 
towards identifying areas where cooperation is mutually beneficial for 
both countries as part of the congressionally-directed Ballistic 
Missile Defense Review.
    Question. With the fiscal year 2010 budget request, Secretary Gates 
has refocused the Department's missile defense program on effective 
theater missile defenses to protect our forward deployed forces, 
allies, and friends against existing short- and medium-range missile 
threats from nations like North Korea and Iran. The budget request 
would provide $900 million in increased funding for more of the 
Terminal High Altitude Area Defense (THAAD) and Standard Missiles-3 
interceptors, and more Aegis Ballistic Missile Defense (BMD) ships.
    Do you agree with Secretary Gates' decision to increase the focus 
on effective theater missile defenses to defend our forces against 
existing regional (short- and medium-range) missile threats from 
nations like North Korea and Iran?
    Answer. Yes. Our forces are increasingly threatened by shorter-
range ballistic missiles and the proliferation of dangerous 
technologies among rogue regimes and non-state actors. In addition, 
states like Iran and North Korea continue development of longer-range 
ballistic missiles with which to coerce the United States and our 
allies and friends.
    Question. The administration is considering a number of options for 
possible missile defense in Europe against a potential future Iranian 
missile threat, including the previously proposed deployment of missile 
defense capabilities in Poland and the Czech Republic.
    From a technical standpoint, do you believe there are a number of 
options for a missile defense in Europe, and do you believe a land-
based Standard Missile-3 interceptor could provide a useful capability 
against future Iranian missile threats, both to Europe and potentially 
to the United States?
    Answer. Yes. I believe there are a number of technical alternatives 
for missile defense architectures in Europe. Land- and sea-based SM-3 
interceptors, along with the necessary sensors and warning from both 
ground and space, could be key components of an alternative technical 
architecture.
    Question. The fiscal year 2010 budget request for the Missile 
Defense Agency includes an initiative to develop the capability to 
intercept ballistic missiles early in their flight, sometimes referred 
to as the ``ascent phase.'' This imitative would use the Standard 
Missile-3 interceptor and existing and near-term sensors. If this 
capability is successful, it could permit the United States to 
intercept long-range missiles from nations like North Korea well before 
the Ground-based Midcourse Defense (GMD) system would have to be used 
to defend the Nation.
    What is your view of the potential value of an ascent-phase 
capability?
    Answer. An early-intercept capability would improve defense of 
theater areas and the Homeland, and we are considering options for that 
potential capability. This defense capability would allow more 
intercept opportunities and potentially conserve interceptors by 
allowing more shoot-look-shoot vice salvo engagements. As a hedge 
against evolving future threats, destroying threat missile early in 
flight reduces the effectiveness of countermeasures.
    Question. As the Vice Chairman of JCS, you are a member of the 
Missile Defense Executive Board, as well as the Chairman of the JROC. 
This gives you a unique perspective on the oversight and management of 
the Ballistic Missile Defense System (BMDS), including its requirements 
component.
    Are there additional steps that you believe would make the BMDS 
more responsive to the operational needs of the combatant commanders, 
and are there additional steps that you believe would improve the 
requirements process for missile defense?
    Answer. No. The additional steps needed to ensure the BMDS aligns 
more closely with the needs of the operational warfighter were 
addressed in the development of the BMDS Life Cycle Management Process. 
This process, used to influence the fiscal year 2010 budget and the 
fiscal year 2011 review, is on track to fully guide fiscal year 2012 
budget inputs.
                             future of nato
    Question. In your view, what existing or new missions should be the 
focus of NATO's strategic efforts over the next 5 years?
    Answer. In my opinion, NATO should concentrate its strategic 
efforts first and foremost on Afghanistan. This will require continuing 
emphasis on sustaining and increasing the ``whole of the international 
community'' approach required for success. Strategic outreach, 
engagement, and cooperation with the international community, to 
include the European Union and the United Nations, and other 
appropriate organizations will be critical in the upcoming years.
    I believe that other strategic priorities for NATO include: the 
move to deterrent presence in Kosovo; consolidating gains and further 
capacity-building in Iraqi security forces through the NATO Training 
Mission-Iraq (NTM-I); and counterpiracy efforts in the Horn of Africa. 
This latter mission is closely linked to NATO support to the African 
Union, which can address some of the root causes of piracy. For all of 
these strategic efforts, the same ``whole of the international 
community'' approach should continue to be applied, as NATO military 
forces alone cannot provide a long-term, lasting solution.
    Question. In your view, how should NATO proceed on the issue of 
further enlargement of the alliance over the next 5 years?
    Answer. That is a political question that will have to be answered 
by the President and Congress for the United States and by the 
governments of the other 27 NATO nations.
    Question. Are you satisfied with the progress of NATO member 
nations, particularly new member nations, in transforming their 
militaries, acquiring advanced capabilities, and enhancing their 
interoperability with the United States and other NATO member nations? 
Where do you see room for improvement?
    Answer. Yes. While allied progress in these three areas varies from 
nation to nation, each nation is continuing, within its own means and 
capabilities, to make progress. Much of this progress is driven by the 
increasing demands of the many ongoing NATO-led operations, 
particularly the operation in Afghanistan. The participation of the 
alliance and of each of its individual member states over the past 6 
years in ISAF is producing forces that are increasingly more deployable 
and sustainable, has led to the development of enhanced alliance 
capabilities, and has significantly improved the interoperability 
between not only U.S. and other allied forces, but also between the 28 
NATO nations and the 14 other partner nations participating in this 
operation. The new NATO nations, while typically very constrained 
financially, have appeared very eager to transform their militaries, 
and have typically been very supportive of our operations in 
Afghanistan.
    Despite the alliance's accomplishments, I believe that NATO needs 
to continue to develop its capability to respond to new threats and 
challenges such as cyber warfare and counterpiracy, and to enhance 
further its ability to work in a comprehensive manner with other 
international organizations, such as the European Union, the United 
Nations, the World Bank, as well as nongovernmental organizations to 
address and respond to these new threats and existing challenges, such 
as those we face in Afghanistan and Iraq.
    Question. What steps, if any, could or should NATO take, in your 
view, to reduce tensions with Russia?
    Answer. NATO should continue to use the NATO-Russia Council (NRC) 
as the primary mechanism for Russian and allied consultation, 
consensus-building, cooperation, joint decision and joint action, and 
as the forum for dialogue with Russia on all issues--where they agree 
and disagree--with a view towards resolving problems and building 
practical cooperation. In fact, the NRC Foreign Ministers met in Greece 
on 27 June, where among other things they identified common security 
interests, such as the stabilization of Afghanistan, arms control, the 
nonproliferation of WMD and their means of delivery, crisis management, 
counterterrorism, counternarcotics, and counterpiracy. As long as no 
events occur that would again increase tensions, I see NATO-Russian 
relations maintaining a positive trajectory.
                       special operations command
    Question. The Command of U.S. Special Operations Command (SOCOM) 
recently submitted a number of proposals to the Office of the Secretary 
of Defense designed to improve the coordination between SOCOM and the 
Services related to personnel management issues, including assignment, 
promotion, compensation, and retention of Special Operations Forces. 
Included in these proposals was a modification of section 167 of title 
10, U.S.C., that would change the role of the SOCOM Commander from 
``monitoring'' the readiness of special operations personnel to 
``coordinating'' with the Services on personnel and manpower management 
policies that directly affect Special Operations Forces.
    Do you support the proposed change to section 167 of title 10, 
U.S.C., to give the Commander of SOCOM greater influence on personnel 
management decisions and policies related to Special Operations Forces? 
Please provide rationale for your position.
    Answer. The Service Chiefs, SOCOM Commander, and I had a detailed 
discussion on this topic last week. It is my recommendation that a 
change to ``coordinating'' with the Services better accomplishes the 
desired amount of participation in the various manpower processes 
sought by the SOCOM Commander in order to ensure the readiness of the 
Special Forces. This change may be effected as either a directive 
change or a statutory change.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important this committee and other appropriate 
committees of Congress are able to receive testimony, briefings, and 
other communications of information.
    Do you agree, if reconfirmed for this high position, to appear 
before this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if reconfirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to the appropriate and necessary security 
protection, with respect to your responsibilities as the Vice Chairman 
of the Joint Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                    nuclear stockpile modernization
    1. Senator McCain. General Cartwright, in a January 2009 Foreign 
Affairs Journal article, Secretary Gates outlined his argument for 
``Reprogramming the Pentagon for a New Age.'' Secretary Gates 
maintained that ``even though the days of hair-trigger superpower 
confrontation are over, as long as other nations possess the boomb and 
the means to deliver it, the United States must maintain a credible 
strategic deterrent.'' He outlined the steps he had taken within the 
Department of Defense (DOD), but highlighted that ``Congress needs to 
do its part by funding the Reliable Replacement Warhead (RRW) program--
for safety, for security, and for a more reliable deterrent.'' Given 
the administration has formally terminated the RRW program, how do you 
assess the current state and future modernization needs of our 
stockpile?
    General Cartwright. As part of the 2008 annual report to the 
President on stockpile assessments, the directors of the national 
laboratories and the Commander, U.S. Strategic Command (STRATCOM) 
reported on the safety, reliability, performance, and military 
effectiveness of the nuclear weapons stockpile. They concluded that the 
current stockpile is safe and, with manageable exceptions, reliable and 
militarily effective. I share their opinion. Still, the risks to our 
stockpile are increasing. To mitigate these risks, it is vital that we 
continue efforts to implement a warhead modernization strategy and 
continue to pursue transformation of the nuclear weapons complex.

    2. Senator McCain. General Cartwright, is our current deterrent 
sustainable without a modernization plan?
    General Cartwright. Not for the long term. A responsive 
infrastructure, including human capital expertise, is an essential 
element in maintaining a credible deterrent. The key to sustaining our 
nuclear weapons capability is a modernization strategy that can provide 
diversity down to the component level in our nuclear deterrent, 
improves safety and security features, and assures long-term confidence 
in the reliability of the stockpile without nuclear testing.

    3. Senator McCain. General Cartwright, do you believe that any 
ratification of the Strategic Arms Reduction Treaty (START) must be 
preceded by plans for a new redesigned and more reliable warhead?
    General Cartwright. I have stated (for the record), both as the 
Commander, STRATCOM, and as the Vice Chairman of the Joint Chiefs of 
Staff, that it is imperative that we begin now to recapitalize our 
nuclear weapons infrastructure in a manner that will allow us to 
modernize our nuclear deterrent.

    4. Senator McCain. General Cartwright, what about the Comprehensive 
Test Ban Treaty (CTBT)?
    General Cartwright. The Department, through the Nuclear Posture 
Review (NPR), is assessing and prioritizing nuclear deterrence 
requirements to ensure the U.S. nuclear forces continue to be safe, 
secure, and effective. A fundamental component of the NPR is a 
technical review that is considering a full range of options for 
modernizing the U.S. stockpile. While the NPR will not be complete for 
sometime, it is important to note that the results will be used to 
guide major nuclear treaty ratification efforts such as START and CTBT. 
At this juncture it is premature to characterize the potential risks 
and rewards of CTBT.

    5. Senator McCain. General Cartwright, earlier this week President 
Obama and Russian President Medvedev signed a Joint Understanding to 
commit the United States and Russia to reduce their strategic warheads 
to a range of 1,500 to 1,675. Conversely, 10 months ago, a joint DOD 
and Department of Energy (DOE) report on ``National Security and 
Nuclear Weapons in the 21st Century'' stated that that a ``force of 
1,700 to 2,200 operationally deployed strategic nuclear warheads is 
sufficient to meet U.S. strategic requirements.'' I feel strongly that 
we should reduce our nuclear forces to the lowest we judge necessary; 
however, I ask what has changed over the last 10 months to conclude 
that 1,500 to 1,675 is the new sufficient range? If we were modernizing 
and making the stockpile more safe, secure, and reliable that would be 
one thing, but given our current course and without the next NPR, I am 
interested in hearing the rationals for why 1,500 to 1,675 is 
sufficient not only today, but if it will be a sufficient range in the 
future without plans for modernization.
    General Cartwright. The NPR conducted detailed analysis which 
concluded a reduction in operationally deployed strategic nuclear 
warheads to a level of 1,500 to 1,675 would be sufficient to meet U.S. 
strategic requirements for similarly constrained Russian forces. 
However, the key to sustaining our nuclear weapons capability is a 
modernization strategy that can provide diversity down to the component 
level in our nuclear deterrent, improves safety and security features, 
and assures long-term confidence in the reliability of the stockpile 
without nuclear testing.

                     european missile defense site
    6. Senator McCain. General Cartwright, with respect to the planned 
European-based missile defense system in Poland and the Czech Republic, 
I am concerned that there is a perception that we are backing away from 
the commitments we made during the past administration. Russia has been 
insistent on linking planned missile defenses in Europe to START. Given 
the joint statement released by President Obama and President Medvedev 
earlier this week which cited little to no agreement on missile 
defense, the question still remains how we will fulfill our commitments 
to our European allies. What steps are being taken to ensure that we 
are not going to break faith with Poland and the Czech Republic?
    General Cartwright. We have assured Poland and the Czech Republic, 
in addition to our other NATO allies, that as we proceed with our 
missile defense review we will consult with them. The U.S. Government 
has been clear in its position that the direction we take on missile 
defense will not come at the expense of our allies, recognizing the 
bold decisions they took in joining our initial European missile 
defense effort. Furthermore, during last year's signing process of 
Missile Defense Agreements, joint Declarations on Strategic Cooperation 
were promulgated with both Poland and the Czech Republic which help us 
focus and enhance our already close security ties.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                       ground-based interceptors
    7. Senator Sessions. General Cartwright, the Missile Defense Agency 
(MDA) fiscal year 2010 budget request suggests that the production line 
for Ground-based Interceptors (GBIs) will terminate sometime in 2012 or 
2013 after completing 44 interceptors. During our missile defense 
hearing on June 16, you indicated that the Department likely will need 
more than 44 GBIs to continue flight tests for the purpose of 
maintaining the reliability of the Ground-based Midcourse Defense 
System and for the missile defense site in Europe. General O'Reilly 
recently indicated that at least 10 additional GBIs, above the 44, will 
be required for stockpile reliability testing. Recognizing the 
potential costs to shut down and restart the GBI production line to 
produce the additional missiles, beyond the 44 that will be required, 
when does the administration plan to make a decision regarding the GBI 
production line?
    General Cartwright. Industry is currently under contract to 
manufacture GBIs. While completion of deliveries will occur in fiscal 
year 2012, there are third and fourth tier suppliers that have 
completed delivery of subassemblies. An assessment is being conducted 
by the MDA, industry, and the Defense Contract Management Agency (DCMA) 
to determine which suppliers are critical and identify approaches to 
mitigate need for requalification, minimizing restart costs for 
potential future Interceptor buys. Planning for GBI lifecycle support 
through 2032 and beyond continues. Results of this assessment will be 
factored into the fiscal year 2010 MDA program plan and the fiscal year 
2011 budget request.

    8. Senator Sessions. General Cartwright, do you have an idea of the 
additional costs associated with restarting the GBI production line?
    General Cartwright. Industry is under contract to manufacture GBIs. 
While completion of deliveries will occur in fiscal year 2012, there 
are third and fourth tier suppliers that have completed delivery of 
subassemblies. An assessment is being conducted by the MDA, industry, 
and the DCMA to determine which suppliers are critical and identify 
approaches to mitigate need for requalification, minimizing restart 
costs for potential future Interceptor buys. Planning for GBI lifecycle 
support through 2032 and beyond continues. Results of this assessment 
will be factored into the fiscal year 2010 MDA program plan and the 
fiscal year 2011 budget request.

    9. Senator Sessions. General Cartwright, what are the costs in 
fiscal year 2010 and fiscal year 2011 to keep the production line warm?
    General Cartwright. In the current plan, the production line will 
be manufacturing GBIs through fiscal year 2012. This production, along 
with GBI refurbishment, will keep tier 1 and tier 2 manufacturing lines 
warm until fiscal year 2014. There are currently tier 3 and tier 4 GBI 
suppliers that have completed delivery of subassemblies. However, 
additional funding for the GBI vendor base beyond what is requested in 
fiscal year 2010 would be premature given the ongoing Ballistic Missile 
Defense Review (BMDR). Results of the BMDR will assist in the 
determination to purchase additional GBIs. Those decisions, based on 
input from the BMDR analysis, will be addressed in the fiscal year 2011 
and beyond budget requests.

    10. Senator Sessions. General Cartwright, if these costs are less 
than the costs associated with a break in production, doesn't it make 
sense to bear these costs starting in fiscal year 2010?
    General Cartwright. Additional funding for the GBI vendor base 
beyond what is requested in the fiscal year 2010 request would be 
premature given the ongoing BMDR. Results of the BMDR will assist in 
the determination to purchase additional GBIs and will be addressed in 
the fiscal year 2011 and beyond budget requests.

    11. Senator Sessions. General Cartwright, what impact would a break 
in production have on the vendors?
    General Cartwright. An assessment is being conducted by the MDA, 
industry, and the DCMA to determine which suppliers are critical and 
identify approaches to mitigate need for requalification, minimizing 
restart costs for potential future Interceptor buys. Planning continues 
for GBI lifecycle support through 2032 and beyond. Results of this 
assessment will be factored into the fiscal year 2010 MDA program plan 
and the fiscal year 2011 budget request.

    12. Senator Sessions. General Cartwright, what will the impact of a 
break in the production line have on the MDA's ability to obtained 
certified parts?
    General Cartwright. MDA does not anticipate an impact on its 
ability to obtain certified parts. Through the assessment being 
conducted by MDA, industry, and DCMA, critical vendors and supply bases 
will be identified and mitigation approaches will be developed.

    13. Senator Sessions. General Cartwright, what impact would the 
break in the production line have on the overall readiness of the GBIs?
    General Cartwright. A break in GBI manufacturing will not affect 
the overall readiness of the GBI fleet. Focused effort will be placed 
on the 30 GBIs to ensure they remain operationally ready to meet the 
warfighter's needs through operational inventory refresh, Interceptor 
refurbishment, and stockpile reliability initiatives.

                                 start
    14. Senator Sessions. General Cartwright, the July 6 Joint 
Understanding commits the United States and Russia to reduce their 
strategic warheads to a range of 1,500 to 1,675, and their strategic 
delivery vehicles to a range of 500 to 1,100. We currently deploy about 
2,200 warheads on about 800 to 900 strategic delivery vehicles. Keeping 
in mind that the Strategic Posture Commission concluded that the United 
States could make reductions ``if this were done while also preserving 
the resilience and survivability of U.S. Forces,'' what is your view on 
the force structure implications of the low-end of the limits now being 
discussed with the Russians (i.e., 1,500 warheads and 500 delivery 
vehicles)?
    General Cartwright. If we are successful in creating an environment 
for a world without nuclear weapons, as President Obama emphasized in 
his Prague speech earlier this year, then eventually, we should be able 
to achieve force structure numbers closer to the low-end limits range 
being discussed with the Russians, and beyond. The keys to success in 
achieving lower numbers will be linked to our ability to recapitalize 
our nuclear weapons complex, implement a modernization strategy, and 
integrate the full spectrum of military capabilities into our calculus.

    15. Senator Sessions. General Cartwright, at what number of 
strategic delivery vehicles do we start having serious implications for 
our ability to field a survivable force of Intercontinental Ballistic 
Missiles (ICBMs), ballistic missile submarines, and strategic bombers?
    General Cartwright. The NPR has produced initial analyses with 
strategic delivery vehicle numbers we find stable at START Follow-On 
numbers with a similarly constrained Russian force. However, more 
analysis needs to be done. Once complete, we will have a better 
understanding of the capability investments necessary to sustain a 
survivable and credible nuclear deterrence force.

    16. Senator Sessions. General Cartwright, what are the implications 
of lower levels of strategic delivery vehicles for assuring our allies 
with the nuclear umbrella and dissuading China and other nations from 
building up to our levels?
    General Cartwright. Without question, we need to maintain enough 
strategic delivery vehicles to assure allies and friends, while 
discouraging competition with nations like China and others. We must 
also focus on expanded deterrence capabilities like missile defense, 
Prompt Global Strike, and others if we are going to provide the 
President with a broad set of credible deterrence and response options 
across the threat spectrum.

                         nuclear modernization
    17. Senator Sessions. General Cartwright, I have repeatedly made 
the case to the Secretary of Defense, the Deputy Secretary of Defense, 
and others that the START arms control track must be accompanied by a 
nuclear modernization track (warheads, nuclear weapons complex, and 
delivery systems). Do you think this is understood by the 
administration?
    General Cartwright. Yes. The President has made it clear that as 
long as we live in a world that has nuclear weapons, the United States 
will maintain a safe, secure, and effective arsenal to deter 
adversaries and assure allies. I believe the President understands the 
problems and issues associated with the current nuclear arsenal and 
supporting infrastructure. This is why we are working very closely with 
DOE and the National Nuclear Security Administration to ensure adequate 
resourcing and modernization activities are accounted for in the 
upcoming President's budget request for fiscal year 2011 and fiscal 
year 2012 budget submissions.

    18. Senator Sessions. General Cartwright, will there be a 
modernization package to accompany START ratification this fall?
    General Cartwright. I completely agree with the statement Secretary 
Gates made last October at his Carnegie Endowment speech, when he said, 
``there is absolutely no way we can maintain a credible deterrent and 
reduce the number of weapons in our stockpile without either resorting 
to testing our stockpile or pursuing a modernization program.'' 
Investment in modernization is required now, independent of the START 
Follow-on ratification process, to ensure the long-term credibility of 
our deterrent force.

                     european missile defense site
    19. Senator Sessions. General Cartwright, in April 2009, the 
National Air and Space Intelligence Center at Wright Patterson Air 
Force Base released their report on the Ballistic and Cruise Missile 
Threat. In it they state, ``with sufficient assistance, Iran could 
develop and test an ICBM capable of reaching the United States by 
2015.'' Many experts agree that Iran has received material support from 
North Korea in the past. Given this estimate and the North Korea-Iran 
linkage, wouldn't you agree that it underscores the importance of 
moving ahead with a European missile defense site?
    General Cartwright. This is a growing concern of ours and 
definitely gets a lot of attention in the Pentagon. As you are aware, 
our current missile defenses are able to protect the United States from 
the potential threat you describe, but that is not the case for our 
allies and friends in Europe and U.S. forces and their families 
stationed there. The current review of missile defense in Europe is 
examining the European site plan and alternatives in order to determine 
how to best defeat the threat while fielding capabilities that are 
affordable and effective. Whichever path is chosen, it will need to 
provide for a layered architecture and be complementary to NATO missile 
defense efforts.

    20. Senator Sessions. General Cartwright, the North Atlantic Treaty 
Organization (NATO) affirmed its support for U.S. plans to field 10 
GBIs in Poland and a missile tracking radar in the Czech Republic at 
the April 2008 Bucharest Summit, when it ``recognize[d] the substantial 
contribution to the protection of allies from long-range ballistic 
missiles to be provided by the planned deployment of European-based 
United States missile defense assets.'' Has NATO changed its view about 
the value of U.S. plans to field missile defense capabilities in Poland 
and the Czech Republic?
    General Cartwright. NATO has not changed its view and I think it is 
important to highlight what NATO has stated on missile defense in 
recent summits. During the 2009 summit in Strasbourg/Kehl, NATO 
reaffirmed what was said at the 2008 summit in Bucharest: ``Ballistic 
missile proliferation poses an increasing threat to allies' forces, 
territory, and populations, and that missile defence forms part of a 
broader response to counter this threat.'' The declaration further 
states that NATO ``recognizes the substantial contribution to the 
protection of allies from long-range ballistic missiles to be provided 
by the planned deployment of European-based United States missile 
defence assets.''

    21. Senator Sessions. General Cartwright, what would be the 
implications for U.S.-allied relations if we were to abandon this 
project?
    General Cartwright. There is no single answer to the question 
because each ally will likely have its own perspectives. We were 
pleased that NATO reaffirmed its position on missile defense during the 
April 2009 Summit of Heads of State and Government at Strasbourg/Kehl. 
We remain adamant that whichever decision is taken, it will not come at 
the expense of our relationships with allies. This is why we believe 
consultations with allies are important to ensure their views are known 
to us and critical to the transparency and confidence building we are 
establishing with Russia.

    22. Senator Sessions. General Cartwright, some have suggested that 
instead of GBI, the United States might deploy SM-3 missiles, either on 
ships or land, to protect Europe against the Iranian ballistic missile. 
Unfortunately, the SM-3 cannot protect the United States against long-
range Iranian threats, as could GBIs deployed in Poland. Why wouldn't 
we want to deploy a missile defense system in Europe that can provide 
protection for both Europe and the United States against Iranian long-
range ballistic missile threats?
    General Cartwright. As part of the current U.S. review of plans for 
missile defense in Europe, we are looking at alternatives that will 
best defeat the threat, are affordable, and are proven. GBI, sea-based 
SM-3, and other capabilities not yet programmed are part of the 
alternatives under review. Whatever alternative is chosen, the 
capabilities must be both scalable and flexible, and will need to 
provide for a layered architecture in which each part will contribute 
to intercept of the threat and ultimately provide protection for Europe 
and the United States against the Iranian long-range ballistic missile 
threat.
                                 ______
                                 
    [The nomination reference of Gen. James E. Cartwright, 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for reappointment as the Vice Chairman 
of the Joint Chiefs of Staff and appointment to the grade of indicated 
while assigned to a position of importance and responsibility under 
title 10, U.S.C., sections 601 and 154:

                             To be General

    Gen. James E. Cartwright, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. James E. Cartwright, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      Resume of Career Service for Gen. James E. Cartwright, USMC
Vice Chairman of the Joint Chiefs of Staff:
    Assigned: 3 Aug 07/Projected Rotation: 30 Sep 09

Date of Rank:
    1 Sep 04

Date of Birth:
    22 Sep 49

Date Commissioned:
    12 Nov 71

MRD:
    1 Jul 12

Education/Qualifications:
    University of Iowa, BS, 1971
    Naval War College, MA, 1991
    The Basic School (Non-Res), 1977
    Air Command and Staff College, 1986
    U.S. Naval War College, 1991
    CAPSTONE, 1997
    Joint Flag Officer Warfighting Course, 2000
    Naval Aviator
Commands:
    Commander, U.S. Strategic Command (Gen: Jul 04-Aug 07)
    Commanding General, 1st Marine Aircraft Wing (MajGen: Aug 00-Apr 
02)
    Deputy Commander, Marine Forces Atlantic (BGen: Aug 99-Jul 00)
    Commanding Officer, Marine Aircraft Group-31 (Col: May 94-May 96)
    Commanding Officer, VMFA-232 (LtCol: May 92-Dec 92)
    Commanding Officer, Marine Aviation Logistics Squadron-12 (LtCol: 
May 89-Jul 90)

Joint Assignments:
    Director, J-8, Joint Staff (LtGen: May 02-Jun 04)
    Special Assistant to Director, J-8; Deputy Director for Force 
Structure, Requirements, Joint Staff (Col/BGen: Jun 96-Jul 99)

Service Staff Assignments:
    Deputy Branch Head, Aviation Plans & Policies, Aviation Department 
(Col: Jan 93-May 94)
    Assistant Operations Officer, Marine Aircraft Group-24 (LtCol: Jun 
91-Apr 92)
    Deputy Assistant PM (F/A-18), Naval Air Systems Command (LtCol: Jun 
86-May 89)
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers as determined by the committee, to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. James E. 
Cartwright, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James E. Cartwright.

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    20 April 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 22, 1949; Rockford, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sandra K. Cartwright (maiden name: Waltz).

    7. Names and ages of children:
    Billee Ann Bennett, 35.
    Jayme Rowland, 29.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                    Gen. James E. Cartwright, USMC.
    This 14th day of April, 2009.

    [The nomination of Gen. James E. Cartwright, USMC, was 
reported to the Senate by Chairman Levin on July 29, 2009, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 31, 2009.]
                              ----------                              

    [Prepared questions submitted to ADM Robert F. Willard, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the special operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    As former Director, Force Structure, Resources and Assessment (J8) 
on the Joint Staff and Vice Chief of Naval Operations, and now as 
Commander, U.S. Pacific Fleet, you have witnessed the effect of these 
reforms from both the joint and service perspective.
    Based on your experience, what is your assessment of these reforms?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. It has created a generation of military leaders 
who are experienced with operating in a coordinated and joint, multi-
service environment.
    Question. Do you see a need to modify any Goldwater-Nichols 
provisions? If so, what modifications are appropriate?
    Answer. At this time, I do not see any need to modify the 
Goldwater-Nichols Act.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Pacific Command (PACOM)?
    Answer. The Commander, PACOM is responsible for deterring attacks 
against the United States and its territories, possessions, and bases, 
to protect Americans and American interests and, in the event that 
deterrence fails, to win its Nation's wars. The Commander is also 
responsible for expanding security cooperation with our allies, 
partners, and friends across the Asia-Pacific region.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Thirty-six years of military experience, culminating in 
command of U.S. Pacific Fleet, have prepared me for assuming command of 
PACOM.
    By serving as the 34th Vice Chief of Naval Operations, and twice as 
a flag officer on the Joint Staff, I gained invaluable insight into the 
administrative processes that underpin an effective Department of 
Defense (DOD), as well as a profound understanding of joint processes, 
interagency cooperation, and the whole-of-government approach.
    My Joint Staff experience is complemented by my joint operational 
experience as a four-star Joint Task Force Commander and as the Joint 
Maritime Component Commander for two Operational Plans.
    Additionally, I have gained extensive regional (Asia-Pacific) 
experience while serving as the Commander of U.S. Pacific Fleet in 
Pearl Harbor, HI, as Commander, Carrier Group 5 aboard USS Kitty Hawk 
(CV 63) in Yokosuka, Japan, and as Commander, U.S. 7th Fleet, also in 
Yokosuka, Japan.
    Finally, I'd offer that my wife, Donna, adds immensely to my 
qualifications. She is a remarkable representative of the U.S. Armed 
Forces, and an exceptional ambassador for our great Nation. She has 
performed magnificently during our tenure at U.S. Pacific Fleet and I'm 
confident her strength, character, patriotism, and regional experience 
will continue to be a significant addition to my qualifications for 
Commander, PACOM.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander 
of PACOM?
    Answer. If confirmed, I intend to take every opportunity to enhance 
my knowledge of our relationships with our allies and partners across 
the Pacific. I look forward to engaging with senior leaders within DOD, 
the Department of State, and military and civilian leaders throughout 
the Asia-Pacific region in order to improve my understanding of U.S. 
interests in the region.
                             relationships
    Question. If confirmed, what will be your command relationship 
with:
    The Secretary of Defense.
    Answer. The Commander, PACOM, performs his duties under the 
authority, direction, and control of the Secretary of Defense. He is 
directly responsible to the Secretary of Defense for the ability of the 
Command to carry out its missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as directed 
by the Secretary and performs the duties of the Secretary in his 
absence. The Commander, PACOM, ensures the Deputy has the information 
necessary to perform these duties and coordinates with him on major 
issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. Under secretaries are key advocates for combatant commands' 
requirements. The Commander, PACOM, coordinates and exchanges 
information with the Under Secretary of Defense for Policy on strategic 
policy issues involving the Asia-Pacific region.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Commander, PACOM, coordinates and exchanges information 
with the Under Secretary of Defense for Intelligence as needed to set 
and meet the Command's intelligence requirements.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction, and 
control of the National Command Authority. The Chairman transmits 
communications between the National Command Authority and the PACOM 
Commander and oversees the activities of the PACOM Commander as 
directed by the Secretary of Defense. As the principal military advisor 
to the President and the Secretary of Defense, the chairman is a key 
conduit between the combatant commander, interagency, and Service 
Chiefs.
    The PACOM Commander keeps the Chairman informed on significant 
issues regarding the PACOM Area of Responsibility (AOR). The Commander 
directly communicates with the Chairman of the Joint Chiefs of Staff on 
a regular basis.
    Question. The Service Secretaries.
    Answer. The Service Secretaries are responsible for the 
administration and support of forces assigned to combatant commands. 
The Commander, PACOM coordinates with the secretaries to ensure that 
requirements to organize, train, and equip PACOM forces are met.
    Question. The Service Chiefs.
    Answer. The Commander, PACOM, communicates and exchanges 
information with the Service Chiefs to support their responsibility for 
organizing, training, and equipping forces. Successful execution of 
PACOM's mission responsibilities requires coordination with the Service 
Chiefs. Like the Chairman, the Service Chiefs are valuable sources of 
judgment and advice for combatant commanders.
    Question. The other combatant commanders.
    Answer. The Commander, PACOM, maintains close relationships with 
the other combatant commanders. These relationships, which are critical 
to the execution of our National Military Strategy, are characterized 
by mutual support, frequent contact, and productive exchanges of 
information on key issues.
    Question. Commander U.S. Forces Korea/Combined Forces Command.
    Answer. As a subordinate unified commander, the Commander, U.S. 
Forces Korea receives missions and functions from Commander, PACOM. I 
recognize his role as Commander, Combined Forces Command and will fully 
support his actions in that sensitive and demanding role.
    Question. The Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    Answer. The Commander, PACOM maintains a close relationship with 
the Assistant Secretary of Defense for Asian and Pacific Security 
Affairs. This relationship ensures close coordination of U.S. policy 
within the Office of the Secretary of Defense (OSD) and the 
Interagency.
    Question. The Deputy Assistant Secretary of Defense for Prisoner of 
War/Missing Personnel.
    Answer. The Commander, PACOM, coordinates and exchanges information 
with the Deputy Assistant Secretary of Defense for POW/Missing 
Personnel Affairs on strategic policy issues involving the POW/Missing 
in Action (MIA) accounting mission worldwide and personnel recovery 
requirements in the Asia-Pacific region.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, PACOM?
    Answer. I believe there are three major challenges in the Pacific 
AOR. First, China's extensive military buildup and modernization are 
creating uncertainty in the region at large. Second, North Korea's 
conventional military, weapons of mass destruction (WMD), and 
proliferation activities are a threat to regional security. Finally, 
maintaining and strengthening our alliances and partnerships are 
critical to the stability in the region.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. We must continue to mature our military-to-military 
relationship with China. In so doing, we reduce the chance of 
miscalculation, increase mutual understanding, and encourage 
cooperation in areas of common concern.
    We will support whole-of-nation approaches to ensure a peaceful, 
secure, and prosperous future for the Korean Peninsula. Our forward 
military presence on the Peninsula assures South Korea and deters 
aggression by North Korea.
    We must remain committed to strengthening our alliances and 
partnerships in the region; such as through the provisions of DPRI with 
Japan and the transfer of wartime operational control (OPCON) from the 
United States to the Republic of Korea (ROK) in 2012.
    Question. If confirmed, what priorities would you establish in 
terms of the issues which must be addressed by Commander, PACOM?
    Answer. Maintaining a credible deterrent and military presence will 
be my top priority and is the single best way for PACOM to contribute 
to a secure and stable region.
    With regard to China, the strategy is one of careful, measured 
military engagement with the Government of China and the PLA, pressing 
for transparency while also sustaining our military capabilities to 
fulfill our defense commitments in the region.
    With regard to North Korea, we will work with the Department of 
State and regional partners to press North Korea to meet its 
commitments--including denuclearization--as agreed to during the Six 
Party Talks, while maintaining the capability to deter potential North 
Korea military threats and countering proliferation activities.
    In order to sustain the realignment and transformation processes 
already underway, we need to review progress constantly and resolve 
challenges in the bilateral relations with both Japan and South Korea.
    We must build upon existing bilateral relationships to pursue more 
multilateral cooperation in the areas of counterterrorism, maritime 
security, and humanitarian assistance/disaster response.
                            homeland defense
    Question. What is your understanding of the role and responsibility 
of PACOM in homeland defense?
    Answer. PACOM responsibility is to deter attacks against the 
Homeland as early and as far away as possible, defend the PACOM 
domestic AOR, and work with and provide support to civil authorities 
when requested. Additionally, PACOM's homeland defense plan complements 
and is integrated with planning for the ongoing overseas contingency 
operations; combating WMD, homeland security, and other relevant 
activities.
    Question. What is your understanding of how PACOM and U.S. Northern 
Command (NORTHCOM) work together to ensure that their overlapping 
missions in this region do not create seams that might be exploited by 
our adversaries and how this process might be improved?
    Answer. In September 2008, Commander, PACOM and Commander, NORTHCOM 
signed a Command Arrangement Agreement that ``establishes procedures 
and delineates responsibilities'' between the two commands. This 
agreement also prescribes employment of PACOM forces in support of 
NORTHCOM missions as well as the control of PACOM forces operating in 
NORTHCOM's Areas of Responsibility (AOR). In my experience, this 
agreement between combatant commands has been highly effective. If 
confirmed, I intend to continue the close working relationship between 
the two commands.
    Question. How could PACOM forces and expertise contribute to more 
effective homeland defense capabilities?
    Answer. PACOM's military and intelligence activities in the western 
approaches to the continental United States contribute to the Nation's 
active, layered defense and enhance situational awareness. A layered 
defense deterring attacks far from our shores, gathering actionable 
intelligence through initiatives such as enhanced maritime domain 
awareness, exercising and training our forces alongside those of our 
allies and partners across the Asia-Pacific region--is the surest means 
for PACOM to contribute to the defense of our Homeland.
      force posture in the u.s. pacific command area of operations
    Question. Perhaps more than with any other combatant command, 
military operations in the PACOM area of operations (AOR) are subject 
to the ``tyranny of distance'' in getting forces to points of exigency 
or conflict. Significant changes to the U.S. force posture in the 
region are planned over the next several years, including movement of 
U.S. marines from Okinawa to Guam and relocation of U.S. forces within 
South Korea.
    In your view, how important is a forward basing strategy to the 
ability of PACOM to execute its operational commitments?
    Answer. Forward basing is essential to the PACOM strategy of 
partnership, readiness, and presence. Forward presence assures our 
friends and allies, while deterring potential adversaries. This 
strategy allows a more flexible force, positioning PACOM to respond 
with a variety of means in the event of a crisis or contingency.
    Question. What do you see as the implications of the proposed force 
structure changes in South Korea, Japan, and Guam on security and 
stability in the Asia-Pacific region and what impact, if any, do you 
expect the proposed changes to have on our ability to react to 
contingencies in the region?
    Answer. I support the U.S. posture changes in Korea and Japan. I 
believe these changes will contribute to strengthening our alliances 
while continuing to posture U.S. forces forward in the region. The 
relocations in Japan and Korea address host nation concerns such as 
noise and encroachment, while improving our mutual defense 
infrastructure in the region through investment projects funded by the 
host governments. Additionally, better use is made of Guam's strategic 
location to position U.S. forces more effectively for the evolving 
security environment.
    Question. Do you believe the relocation of about 8,000 U.S. marines 
and about 3,600 other U.S. military members and dependents from Japan 
to Guam is in the best interest of the United States and our allies? 
Why or why not?
    Answer. The relocation is the most comprehensive force change in 
over 3 decades. It helps to strengthen our alliance with Japan by 
addressing longstanding concerns about the U.S. presence on Okinawa. It 
diversifies our presence in the Western Pacific by taking advantage of 
Guam's strategic location and its status as a sovereign U.S. territory. 
It also allows a greater degree of flexibility to address regional and 
global threats, while providing the ability to train on U.S. territory 
in a forward location with partner nations.
    Answer. How does the relocation of these marines improve our 
security posture in the region?
    Answer. This relocation improves our security posture in the region 
by spreading our capability and balancing our flexibility more broadly 
across the Pacific. It also provides an opportunity for combined 
training with partner nations in the region on sovereign U.S. 
territory. Security and stability are enhanced through balancing 
strengthened alliances with a more flexible positioning of forces.
    Question. What is your view about the advisability of requiring 
that construction companies pay their workers on Guam realignment 
construction projects wages equivalent to rates in Hawaii? What impact 
would this approach have on the cost of the move?
    Answer. The Services have built military construction (MILCON) 
projects on Guam for many years including homes, runway repairs, piers, 
and schools using the prevailing Guam wages. According to Department of 
Labor data, Hawaii construction wage rates are approximately 300 
percent higher than those on Guam. The $10.27 billion estimated cost 
for construction to relocate the marines to Guam was based on 
historical wages experienced on Guam. In accordance with international 
agreement, the amount of funding that Japan will provide is fixed. 
Therefore, any additional cost will require more U.S. funding. The 
Joint Guam Program Office estimates application of Hawaii Davis-Bacon 
wage rates with fringes to Guam could increase the labor cost for the 
realignment by $4.7 billion.
    Question. Some observers suggest that the United States is 
preoccupied in Central Asia and has not focused sufficiently on 
challenges in East Asia at a critical time in the development of that 
region.
    What is your assessment of the U.S. levels of funding, manning, and 
political-military engagement in PACOM's AOR as compared to other 
geographical regions, particularly Central Asia?
    Answer. I understand the increased focus on the challenges in 
Central Asia. However, I do agree with Secretary Gates' observation 
that the United States has never been mare engaged in the Asia-Pacific 
region than today. If confirmed, I will review levels of funding, 
manning, and military-to-military engagement in the Asia-Pacific region 
and, if there are shortfalls in existing resources, I will be a strong 
advocate for requesting an increase in levels of funding.
    Question. Many of the United States' key alliances in Asia were 
established years ago when global conditions and threats were different 
than today. In recent years, PACOM has given priority to the 
development of cooperative security arrangements with partners in the 
region.
    Do you agree with this objective and, if so, what countries do you 
see as the top priorities for such arrangements to best enhance 
stability and security in the region?
    Answer. Yes, I agree with this objective. The cooperative security 
partnerships established with top priority countries such as Singapore, 
India, and Indonesia have served to significantly enhance access, 
security, and stability throughout the Asia Pacific. To date, these 
developing partnerships have resulted in successes in combating 
terrorism, maintaining maritime security, and providing humanitarian 
assistance/disaster relief.
                    emerging pacific theater threats
    Question. Regional powers and non-state actors in PACOM's AOR are 
making significant efforts to improve their ability to project power 
with respect to both conventional and irregular capabilities.
    What are your biggest concerns with respect to development of 
advanced conventional and irregular warfighting capabilities by nations 
and non-state actors in PACOM's AOR?
    Answer. Major concerns include the lack of transparency regarding 
China's development of advanced conventional and asymmetric weapons--
beyond what is required for its national defense--and the ongoing North 
Korean missile programs. With regard to irregular warfare, several 
extremist organizations in South and Southeast Asia may continue to 
advance their agendas by importing foreign terrorist tactics and 
techniques that have proven most lethal elsewhere.
    Question. What do you see as the highest priority capability gaps 
that need to be addressed by the United States in order to meet these 
emerging threats?
    Answer. Regional state and non-state actors are increasingly 
sophisticated at hiding their activities and intentions. PACOM requires 
a similarly agile and sophisticated intelligence enterprise to avoid 
strategic surprise through early detection and insight into an 
adversary's intentions and capabilities. This can only be achieved by 
combining improved intelligence collection systems using the proper mix 
of platforms and sensors, with the regional expertise and advanced 
analytic tools that enable us to anticipate threats rather than react 
to crises.
    If confirmed, I will ensure that the process to develop capability-
gap priorities carefully considers the full range of PACOM roles and 
missions, takes into account the issues and concerns of our component 
and subunified commanders, and that the resultant actions by the 
Services and force providers delivers needed capabilities to our 
operational forces.
    Our military must be able to respond to emerging threats in a 
variety of domains, including the electromagnetic spectrum and 
cyberspace, as well as the traditional air, maritime, and ground 
domains.
    Question. If confirmed, what steps will you take to ensure that 
these needed capabilities are developed and deployed to warfighters?
    Answer. If confirmed, I will ensure that PACOM processes to 
identify needed capabilities remain responsive to both assigned 
missions and emerging threats. I will continue to use the annual 
Integrated Priority List memorandum to the Chairman of the Joint Chiefs 
of Staff to advocate for those capability shortfalls most critical to 
operations in the Pacific theater. We will communicate these priorities 
to Services and force providers through proper channels, and we will 
provide feedback on the fielded capabilities and their effectiveness in 
closing identified capability gaps.
    Question. How should U.S. policies and engagements in the Asia-
Pacific region change to best meet new threats and conditions?
    Answer. PACOM in general is well-positioned and resourced to meet 
most conventional threats in the Asia-Pacific theater. Countering the 
radical extremist threat, however, requires unique approaches to be 
most effective. Building indigenous CT capabilities and capacities into 
susceptible Asia-Pacific nations is one such approach. Equipped with 
supportive policies and resources, PACOM, in partnership with relevant 
agencies of the United States Government and private enterprise, can 
assist regional nations that are susceptible to radical extremism to 
become more self sufficient in combating terrorism.
                              north korea
    Question. North Korea continues to represent one of the greatest 
near-term threats to U.S. national security interests in Asia, and 
recent events underscore the possible destabilizing nature of certain 
North Korean activities.
    What is your assessment of the current security situation on the 
Korean peninsula?
    Answer. The 2009 North Korean TD-2 launch, probable nuclear test, 
and continued ballistic missile activity underscore the gravity of the 
North Korean threat. North Korea is pursuing a multi-dimensional 
strategy (includes provocative military actions and aggressive 
rhetoric) to achieve specific domestic, inter-Korean, and international 
objectives. North Korea's stated intent to depart from Six-Party Talks 
and conditions of the armistice further demonstrates the uncertain 
security situation they are generating.
    Question. What is the value of diplomatic efforts to persuade North 
Korea to resume negotiations to verifiably dismantle its nuclear 
weapons program?
    Answer. A resumption of negotiations might return the Peninsula to 
a more rational status quo. The United States remains committed to the 
Six-Party Talks process, and calls on the Democratic People's Republic 
of Korea to fulfill its commitments under the September 19, 2005, Joint 
Statement of the Six-Party Talks, to abandon all nuclear weapons and 
existing nuclear programs and return, at an early date, to the Treaty 
on Non-Proliferation of Nuclear Weapons and to International Atomic 
Energy Agency safeguards.
    Question. What is your assessment of the threat posed to the United 
States and our allies by North Korea's ballistic missile and WMD 
capabilities, including the export of those capabilities?
    Answer. North Korea's pursuit and development of WMD and ballistic 
missile capabilities, as well as its proliferation efforts, pose a 
significant threat to the U.S. and our allies. The development of WMD 
and advanced ballistic missiles increases regional tension and could 
spur a limited arms race as neighbors seek to enhance their own 
deterrent and defense capabilities. North Korea has historically 
proliferated arms and military equipment to regimes such as Iran, 
Burma, and Libya and may attempt to do so with WMD or longer range 
missiles.
    Question. What is the U.S. military's role in enforcing sanctions 
imposed by U.N. Security Council Resolution (UNSCR) 1874?
    Answer. As obligated by UNSCR 1874, the United States will remain 
vigilant of any North Korean activities that might contravene the 
resolution, and we will respond in line with the provisions of the 
resolution. UNSCR 1874 provides no authority for military enforcement 
outside a nation's territorial waters. However, the military provides 
support to the U.S. Government enforcement effort through tracking of 
maritime vessels of interest.
    Question. In your view, what, if anything, should be done to 
strengthen deterrence on the Korean peninsula?
    Answer. The United States has strong alliances in the region, and, 
if necessary, we will leverage these alliances to deter any aggression 
from North Korea. Our forces throughout the region train rigorously and 
are fully prepared to deal with any contingencies in upholding our 
treaty obligations to Japan and the ROK. Our commitment to the security 
of these close allies includes the U.S. strategic umbrella, which is an 
integral part of our extended deterrence.
                           republic of korea
    Question. Over the next several years, the U.S.-ROK alliance, a key 
pillar of security in the Asia-Pacific region, will undergo significant 
change in terms of command and control and force positioning.
    What is your understanding of the current U.S. security 
relationship with South Korea?
    Answer. The U.S.-ROK security relationship is an enduring 
partnership that has been the key to deterrence for over 50 years. It 
ensures peace on the Korean Peninsula and in Northeast Asia. The major 
advances made by the ROK in recent years regarding defense capability, 
economic capacity, and technology are supporting the transformation of 
this partnership. Our alliance has evolved to become a global one, as 
demonstrated by the ROK military's contributions to overseas 
contingency operations such as the U.N. mission in Lebanon and Counter-
Piracy operations off the Horn of Africa.
    Question. If confirmed, what measures, if any, will you take, in 
conjunction with Commander, U.S. Forces Korea/Combined Forces Command, 
to improve the U.S.-ROK security relationship?
    Answer. If confirmed, I will work closely with the Commander, 
United States Forces Korea/Combined Forces Command to ensure there is 
no degradation in readiness or deterrence. I will ensure that PACOM 
supports the transformation initiatives, such as force realignment, 
return of unneeded facilities, development of command relationships, 
and contingency plans.
    Question. The transfer of command and control to the ROK is planned 
for April 2012. In your view, is that date achievable and should this 
transfer occur as planned?
    Answer. The U.S. and ROK military forces are on track to complete 
the transition of wartime operational control in 2012. This effort will 
enable the ROK military to take the lead role in the defense of Korea. 
If confirmed, I will ensure that PACOM supports the united efforts to 
achieve the transformation on time.
    Question. Do you support increasing the number of personnel 
assigned to Korea for 2 or 3 years of duty and the number of military 
and civilian personnel authorized to be accompanied by their dependents 
for these longer tours of duty?
    Answer. Yes, if confirmed, I will support the Secretary of Defense, 
who favors the concept of tour normalization, increasing the number of 
personnel assigned for 2- or 3-year tours, as well as the number of 
accompanied tours. Normalization of tours will provide greater 
stability for servicemembers and family members, improve operational 
readiness in Korea, and clearly demonstrate the enduring U.S. 
commitment to the U.S.-ROK alliance. The Quadrennial Defense Review is 
examining methods to best implement this concept, and if confirmed, I 
will ensure that PACOM staff continues to support this effort.
    Question. What are the key considerations, in your view, in 
approving the stationing of more dependents in the ROK and how is your 
view on this matter affected, if at all, by the current tensions on the 
Korean peninsula?
    Answer. Enhancing the stability of our families, improving the 
operational readiness of our forces in the ROK, and clearly 
demonstrating the enduring U.S. commitment to the U.S.-ROK alliance all 
support our efforts to address the security situation on the Korean 
Peninsula and in Northeast Asia. Implementation of these initiatives 
will contribute to increased deterrence and should lessen the 
likelihood of increased tensions on the Peninsula.
                                 china
    Question. China is viewed by some as a potential threat and by 
others as a potential constructive partner. Either way, it is clear 
that China has an increasingly significant role in the security and 
stability of the region, and the United States must determine how best 
to respond to China's emergence as a major regional and global economic 
and military power.
    What is your assessment of the current state of U.S.-China military 
relations?
    Answer. Our military-to-military relationship continues to be 
characterized by cyclical ups and downs and, in general, lags behind 
the overall U.S.-China relationship in terms of maturity. The recent 
Defense Consultative Talks, led by USD(P) Flournoy in Beijing this past 
June, was the symbolic restart of our military-to-military 
relationship, unilaterally suspended by China in October 2008 over the 
announcement of U.S. arms sales to Taiwan. Although the meetings went 
well and restarting a military-to-military dialogue is a notable 
accomplishment, it highlighted the fact that there were no official 
military-to-military relations between the United States and China for 
almost 9 months. In a more mature relationship, which we are seeking, 
the value of a continuous military-to-military dialogue is recognized 
and leveraged to advance areas of common interest and help resolve 
areas of disagreement.
    Question. How would you characterize the quality of the U.S.-China 
military-to-military engagements to date?
    Answer. The general trend in military-to-military relations has 
been positive since the April 1, 2001, collision between a U.S. Navy 
EP-3 and a PLA fighter. The past 2 years of reduced engagement are 
hopefully atypical, as they were affected by a suspension of high level 
events during the Beijing Olympics in August 2008 and a pause as China 
responded to the earthquake disaster in May 2008. If confirmed, I will 
seek to stabilize the military-to-military relationship and resume a 
positive trend in both quality and quantity of engagements.
    Question. If confirmed as Commander, PACOM, what do you envision as 
your role in military-to-military engagements with China?
    Answer. PACOM should lead the military-to-military relationship 
with China. As China and the People's Liberation Army are also engaging 
worldwide, other combatant commanders will also play a role in 
advancing the relationship. PACOM will work with these combatant 
commanders, the Joint Staff, and the Office of the Secretary of Defense 
to rationalize military-to-military engagements with China in support 
of broader U.S.-China strategic objectives.
    Question. How do China's efforts to establish a strategic presence 
in various South Asian seaports affect its political-military posture 
and influence in the region?
    Answer. As China grows and expands her presence, it will be 
increasingly important to understand her intentions and to help 
influence her development as a responsible stakeholder. Chinese 
influence in South Asia, like much of the world, has been facilitated 
mainly by economic penetration into this region's markets. Chinese 
assistance in the development of Indian Ocean ports is intended to 
facilitate access to trade, resources, and investment. To date we have 
not observed a military component to these port development projects. A 
more mature and sophisticated military-to-military relationship could 
lead to a better understanding of PRC long-term goals and intentions in 
South Asia, and contribute to a lessened likelihood of miscalculation.
    Question. China's defense spending in 2009 will exceed its 2008 
spending by 15 percent, continuing its trend of double-digit growth in 
each of the last 20 years.
    In your view, what is China's intent in pursuing such rapid 
military growth and modernization?
    Answer. For the past 20 years, the main impetus for China's 
military modernization has been to prepare for a potential Taiwan 
conflict involving U.S. intervention. However, investments also 
indicate a broader national agenda. Lacking transparency into the full 
range of Chinese military spending and planning, there remains 
uncertainty over the future direction and goals of an increasingly 
powerful PLA.
    Question. What do you believe are China's political-military goals 
in the Asia-Pacific region and globally?
    Answer. China aims to create a military commensurate with its 
reemergence as a global great power with expanded regional and 
strategic interests. China seeks to be increasingly self-sufficient in 
its ability to secure its interests, including areas around China that 
it regards as sovereign Chinese territory as well as the international 
sea lines of communication upon which its economy depends.
    Question. Recent incidents involving the U.S. Navy and Chinese 
ships, such as with the USNS Impeccable in the South China Sea and the 
USNS Victorious in the Yellow Sea, suggest the need for improved mutual 
understandings between the United States and China in the maritime 
environment.
    Please describe your understanding of the current U.S.-China 
Military Maritime Consultative Agreement (MMCA).
    Answer. The U.S.-China MMCA has within its title ``. . . A 
Consultation Mechanism to Strengthen Military Maritime Safety.'' The 
goal is to develop operational and tactical level understanding between 
military operators of the international norms for conducting safe 
operations in close proximity to one another.
    Question. Has that agreement been effective? If not, how can it be 
improved?
    Answer. The agreement has been a qualified success. The MMCA has 
served as a durable forum for communications between the U.S. and 
Chinese militaries. For example, a special meeting held under the MMCA 
was the first official meeting after the April 2001 EP-3 incident. In 
2006, the MMCA forum facilitated a successful two-phase, bilateral 
Search and Rescue Exercise off Hawaii and San Diego. However, the 
Chinese continue to use the MMCA as a platform to discuss policy and 
legal interpretations and to criticize U.S. military operations. If 
confirmed, I will seek to mature MMCA discussions such that they 
achieve their goal of enhancing the safety of sailors and airmen of 
both nations.
    Question. What should be done to prevent future maritime incidents 
with China?
    Answer. A more mature military-to-military relationship will allow 
better understanding of intentions and reduce the chances for 
misunderstanding and miscalculations. As part of these discussions via 
the MMCA and all other levels on engagement, the necessity to observe 
international norms in maritime operations may be emphasized.
                                 taiwan
    Question. What is your assessment of U.S.-Taiwan military 
relations?
    Answer. Guided by the Taiwan Relations Act stipulation that we will 
make available to Taiwan defensive articles and services as necessary 
for Taiwan to maintain a sufficient self-defense capability, we 
maintain a robust military-to-military engagement with Taiwan at all 
levels. The United States and Taiwan regularly conduct dialogues and 
exchanges. For example, U.S. Pacific Fleet conducted the Bi Hai (``Blue 
Sea'') forum with the Taiwan Navy. PACOM conducts an annual observation 
of Taiwan's Han Kuang joint exercises. While our relationship is based 
on the Taiwan Relations Act and related policies, it is also shaped by 
our common democratic cultures. It is something I will continue to 
strongly support.
    Question. What are the priorities, in your view, for U.S. military 
assistance to Taiwan?
    Answer. We closely monitor the shifting balance in the Taiwan 
Strait and Taiwan's defense needs and Taiwan has made significant 
strides in increasing its self defense capabilities. We should continue 
to emphasize the importance of joint training--to include both command 
post exercises and realistic training in the field as well as their 
need to more fully integrate their capabilities, including air and 
missile defenses. Also, to the maximum extent possible, we should 
assist in Taiwan's transition to an All-Volunteer Force, including 
development of a professional noncommissioned officer corps.
    Question. What is your assessment of the cross-strait relationship 
between China and Taiwan?
    Answer. The Ma Administration's cross-strait policies have 
contributed to a lessening of tensions in the region. We support the 
expanding dialogue and exchanges across the Strait. Presently, the PRC 
continues to increase and improve its cross-Strait military posture. In 
the longer term, we should observe for a commensurate reduction in PRC 
military power that threatens Taiwan.
    Question. What is your view of the relationship between the type of 
assistance we offer Taiwan and the stability of the region?
    Answer. Adequate defense in Taiwan and our support to that 
capability is essential to maintaining peace and security in Northeast 
Asia. The Taiwan Relations Act, which shapes our support to Taiwan, has 
been in force now for over 30 years and has played a valuable and 
important role in our approach to the region. Helping Taiwan maintain 
its self defense will help ensure cross-Strait balance, stability, and 
regional prosperity.
                                 india
    Question. What is your view of the current state of U.S.-India 
military relations?
    Answer. Our military-to-military relations with India are very 
positive and expanding. Overall, both the United States and India view 
our military-to-military relationship as the foundation of our 
``strategic partnership.'' Due to the wide range of shared security 
interests, accompanied with the increasing complexity and maturity of 
our engagement, this relationship will continue to expand. Currently, 
we are engaging India on many fronts including foreign military sales, 
advanced training such as Malabar and Red Flag, and real world 
operations such as counter-piracy patrols in the Gulf of Aden and U.S. 
POW/MIA recovery missions in northeastern India.
    Question. If confirmed, what specific priorities would you 
establish for the U.S. military relationship with India?
    Answer. India's growing economic, diplomatic, and military power 
makes them a key player not only in South and Central Asia but globally 
as well. A strong positive relationship with India is essential to 
achieving long-term U.S. goals such as regional security and stability, 
reduced tensions with Pakistan, and wide-ranging cooperation to counter 
extremism. We should continue to expand our military-to-military 
engagement to include multilateral partners and increasingly complex 
exercise scenarios that help to advance India's military capabilities. 
In coordination with U.S. Central Command (CENTCOM), we will develop 
confidence building measures and events that help reduce India-Pakistan 
tension and support the greater U.S.-Afghanistan-Pakistan Strategy.
    Question. How do our engagements in Pakistan and Afghanistan affect 
our relations with India?
    Answer. India has voiced strong support for U.S. objectives to 
bring peace and stability to Afghanistan and Pakistan. While they voice 
their support, they also voice their concern that the United States 
might sacrifice our strong bilateral relationship and its long-term 
benefits for the sake of an immediate Afghanistan-Pakistan campaign 
strategy. Our best course of action to allay Indian concerns while 
garnishing their overall support for our ongoing regional efforts is to 
continue to strengthen our bilateral relationship with India across all 
agencies of government, including military-to-military.
    Question. What relationship, if any, do you believe exists between 
the armed groups conducting terrorist attacks in India, and the armed 
groups conducting attacks in Pakistan and Afghanistan?
    Answer. Leaders of violent extremist groups such as al Qaeda, 
Jaish-e-Mohammad, and Lashkar-Tayyiba leverage personal relationships 
forged during the 1980s when many of these leaders joined together to 
fight the Soviets in Afghanistan. These informal, nonorganizational 
relationships continue to factor into some extremist operations in the 
PACOM AOR.
                      republic of the philippines
    Question. What is your assessment of the current state of U.S.-
Philippines military relations?
    Answer. The Philippines is one of the United States' five treaty 
allies in the Pacific and is a committed regional security partner. Our 
alliance is exceptionally strong. The United States has a mature and 
focused engagement with the Philippines that is achieving results in 
the form of enhanced counterterrorism performance, maturing maritime 
security efforts, and increased commitment to multilateral regional 
security activities.
    Question. What is your view of the effectiveness of the Special 
Operation Forces assistance being provided to the Philippines military 
in its light against terrorist groups?
    Answer. The U.S. military is working effectively ``by, with, and 
through'' the Armed Forces of the Philippines (AFP) to provide 
assistance while respecting the legal restrictions on foreign forces 
embodied in the Philippine Constitution. The United States provides 
active support through a variety of security assistance and engagement 
activities designed to increase AFP capability and capacity to fight 
violent extremist organizations. The result of these efforts is evident 
in the increased ability to respond effectively to the threat of 
terrorist organizations like the Abu Sayaf Group and Jemah Ismaliya by 
AFP.
    Question. What measures or guidelines would you employ, if 
confirmed, to control the circumstances, if any, under which U.S. 
personnel may become involved in combat in the Republic of the 
Philippines?
    Answer. The United States respects the sovereignty of the 
Philippines. Our policy is clear: U.S. forces are not authorized to 
conduct combat operations in the Republic of the Philippines or to 
accompany Philippine Security Forces to locations where contact with 
the enemy by U.S. forces is anticipated. If confirmed, I will continue 
to support current restrictions and enforcement mechanisms prohibiting 
a combat role for U.S. forces.
                               indonesia
    Question. Indonesia is a key Asian power and the largest Muslim 
country in the world. Building on opportunities to improve and expand 
U.S. relations with Indonesia where possible should be a key goal.
    What is your assessment of U.S.-Indonesian military relations?
    Answer. The U.S.-Indonesia military-to-military relationship has 
steadily grown since the normalization of relations in 2005. The 
relationship has evolved from initial, small-scale, bilateral exchanges 
into a more complex, focused partnership which encourages the 
Indonesian Defense Forces (TNI) to take the lead in bilateral and 
multilateral exercises. TNI is a demonstrated partner in Humanitarian 
Assistance/Disaster Relief (HA/DR), Peacekeeping Operations (PKO), and 
leadership development. The Indonesian Government has demonstrated its 
desire to work multilaterally and be a partner nation through the TNI's 
participation in United Nations PKO missions in Lebanon, the Congo, and 
Sudan; leading the Global Peace Operations Initiative (GPOI) Capstone 
exercise, Garuda Shield; and taking the lead in the United Nations 
Force Headquarters in Cobra Gold.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions?
    Answer. If confirmed, I would support increased military-to-
military contact within the confines of existing legal restrictions and 
in close consultation with the Departments of State and Defense.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adherence to human rights standards, improvement in standards of 
military justice, and cooperation with law enforcement efforts to 
investigate and prosecute those military personnel accused of human 
rights abuses?
    Answer. The Government of Indonesia continues to make progress in 
military reform. Early progress toward defense reform--separation of 
the police from the military, eliminating formal political roles for 
the TNI, increasing accountability, and human rights training--has been 
sustained. The 2002 Defense Law and the 2004 TNI Law formally codified 
the roles and responsibilities of the TNI as a mechanism to support, 
not replace, civilian government. It is worth noting the TNI's 
professional conduct during recently completed parliamentary elections. 
Continued ``hard'' reforms that the United States should continue to 
push for include full accountability for past human rights abuses, 
strengthening civilian control, putting the TNI fully ``on budget'', 
and continued professionalism of the TNI officer corps.
    If confirmed, I would support TNI's continued progress by 
encouraging professionalism within the military with particular 
emphasis on accountability and respect for human rights through 
bilateral security discussions, joint training, military assistance, 
and military training programs. U.S. interaction with TNI soldiers is 
the most effective method to encourage professionalism in the 
Indonesian military.
    Question. What is your understanding of the extent to which the 
Indonesian Government is cooperating with the United States in the 
fight against terrorist networks?
    Answer. Based on my current understanding, I believe the Government 
of Indonesia has cooperated closely and effectively with the United 
States and our allies in combating global terrorist networks in the 
region. The government has shown tremendous success in arresting and 
convicting terrorists.
    Question. Do you believe increased engagement by U.S. Special 
Operations Forces, particularly in a foreign internal defense capacity, 
would be positive for the U.S.-Indonesian military-to-military 
relationship?
    Answer. Engagement by all our forces has been steadily increasing 
as our military-to-military relationship continues to mature and 
expand. In every case, U.S. Special Operations Forces (SOF) inclusive, 
increased engagement has had significant positive impact on our growing 
partnership. Regardless of mission, our training focuses on reinforcing 
professional military practices to include respect for human rights and 
the rule of law.
    Question. What do you believe is the biggest challenge to 
increasing special operations engagement in Indonesia?
    Answer. Current U.S. military engagement with the Indonesian 
Special Forces is fairly robust; PACOM currently trains with the 
Indonesian Naval Special Forces, Indonesian Marine Special Forces, and 
Indonesian Air Force Special Forces. U.S. SOF engagement with key 
Indonesian Special Operations Forces (specifically the Indonesian Army 
Special Forces known as KOPASSUS) remains a challenge in light of 
current vetting requirements designed to preclude specific units 
previously linked to human rights abuses from participating in U.S.-
funded training. In this regard, I am firmly committed to U.S. policies 
and laws on human rights and I will support all efforts to make sure 
that no U.S. money or training goes to those individuals who have 
abused human rights in the past.
                               australia
    Question. The U.S.-Australia alliance remains strong and stands as 
a key component of regional security and stability.
    Please describe your understanding of ongoing U.S. collaborative 
efforts with Australia, particularly with respect to intelligence, 
surveillance, and reconnaissance (ISR) and humanitarian assistance and 
disaster relief capabilities in the region.
    Answer. In September 2007, the United States and Australia agreed 
to pursue three areas of Enhanced Defense Cooperation (EDC): ISR, HA/
DR, and Joint Combined Training Capability (JCTC). The recent April 
2009 Australia-U.S. Ministerial Consultations (AUSMINS) Joint 
Communique highlighted progress made on these enhanced defense 
cooperation initiatives.
    The United States and Australia are partnering in an Enhanced ISR 
Initiative to increase interoperability in the employment of Australian 
and U.S. ISR systems to collect, fuse, and share intelligence to meet 
our mutual defense and national needs around the globe. Collaborative 
efforts have enabled both nations to efficiently employ their low 
density, high demand ISR assets and strengthen strategic partnership in 
the Pacific.
    Combined efforts to develop a HA/DR capability that enhances our 
joint response to catastrophic regional events is progressing. Though 
neither PACOM nor the Australia Defence Force own HA/DR stocks, our 
coordination efforts reach to the interagency, for a whole-of-
government approach. As the HA/DR initial responders, our respective 
militaries improve coordination through existing agreements and 
arrangements and are exploring respective control-center linkages.
    Question. What do you believe should be done to continue to promote 
cooperation between the United States and Australia and to further 
enhance inoperability?
    Answer. The Australia-U.S. military relationship is mature and 
successful. Continued bilateral/multilateral training exercises, along 
with sustaining the ongoing range of formal and informal dialogues, 
will enhance interoperability between the United States and Australia.
    The Joint Combined Training Capability (JCTC) is the third 
initiative under the EDC umbrella our countries agreed to in 2007. JCTC 
is a networked architecture linking U.S. and Australia simulations and 
live forces to create realistic combat training. The technology proven 
during our biannual, bilateral exercise Talisman Sabre in 2007 will be 
further explored this month in Talisman Sabre 09, as well as other 
exercises and operations this year. The JCTC directly enhances 
interoperability between our two militaries, reduces cost and improves 
unilateral and bilateral training quality.
                                thailand
    Question. What is your view of the strategic importance of Thailand 
in the Asia-Pacific region?
    Answer. Thailand remains a dependable U.S. ally and our 175-year 
bilateral relationship (our oldest in Asia) remains strong. Thailand 
was declared a Major Non-NATO Ally of the United States in 2003, and 
the Royal Thai Government (RTG) continues to provide strong support and 
close cooperation in combating sources of terrorism. Thailand is key 
for U.S. regional security goals and addressing regional challenges 
such as maritime security, counterterrorism, and disaster relief. 
Thailand provides important access to military facilities for force 
projection, military exercises, and humanitarian relief. Thailand hosts 
more exercises with the United States than any other Southeast Asian 
country, averaging over 40 per year, some of which are multilateral.
    Question. If confirmed, what approach would you take to 
strengthening U.S. relationships with the Government of Thailand?
    Answer. We will continue to expand our partnership in addressing 
global and regional security concerns and challenges. In recent years, 
Thailand has supported U.S. coalition efforts by dispatching military 
units to Afghanistan and Iraq, sent military observers to Indonesia to 
support the Aceh peace process, and pledged a peacekeeping battalion 
for the U.N. Mission in Darfur. If confirmed, I will encourage the RTG 
to continue joining international efforts promoting peace and 
stability. Additionally, we will use our military exercise program and 
training courses to maintain close relationships with Thai political, 
military, law enforcement and intelligence officials, build defense 
relations that promote specific U.S. security interests, and reinforce 
civilian control of the military.
  transnational threats in the pacific command area of responsibility
    Question. Do you agree that drugs, human trafficking, and terrorism 
are transnational threats in the Asia-Pacific region?
    Answer. I agree these are all extremely serious and interrelated 
threats to regional stability. Transnational crime and terrorism thrive 
on common enablers such as illicit transportation networks, weapons 
trafficking, corruption, and the financial underground. These threats 
impact political, social, and economic systems differently yet in equal 
measure by eroding the rule of law; undermining the legitimacy of 
governments and institutions; and shifting wealth and power to 
terrorist and criminal networks.
    Question. If confirmed, how would you approach the prioritization 
of these threats? How would you assess the role of the U.S. military in 
addressing them, as well as the adequacy of resources to do so?
    Answer. These threats are mutually supporting and must be addressed 
collectively with other U.S. Government agencies, foreign partners, and 
stakeholders such as NGOs and the private sector. We cannot achieve 
objectives against violent extremism without confronting criminal 
challenges that facilitate extremist and insurgent freedom of action. 
PACOM must continue to enhance cooperation with its partners to 
identify our comparative advantages and apply them cohesively toward 
achieving desired outcomes. The military priority is to further evolve 
its ability to support U.S. and partner nation law enforcement 
activities.
    PACOM is currently limited in this endeavor by resources and 
authorities. Counterdrug programs are the primary means for providing 
military support to law enforcement. Additional counterdrug funding, 
coupled with expanded authorities for other military-civilian 
engagement, would significantly enhance our contributions to overall 
effort.
              missile defense capability in the pacom aor
    Question. Do you believe the United States currently has sufficient 
missile defense capabilities to defend U.S. forward deployed forces and 
allies in the PACOM AOR against the existing ballistic missile threat 
posed by North Korea?
    Answer. Yes, we currently have sufficient ballistic missile defense 
(BMD) capability to defend against the North Korean ballistic missile 
threat.
                     theater missile defense focus
    Question. With the fiscal year 2010 budget request, Secretary Gates 
has refocused the Department's missile defense program more on 
effective theater missile defenses to protect our forward deployed 
forces, allies, and friends against existing short- and medium-range 
missile threats from nations like North Korea. The budget request would 
provide $900 million in increased funding for more of the Terminal High 
Altitude Area Defense and Standard Missile-3 interceptors, and more 
Aegis BMD ships.
    Do you agree with Secretary Gates' decision to increase the focus 
on effective theater missile defenses to defend our forces against 
existing regional missile threats from nations like North Korea?
    Answer. Yes, I agree with the Secretary that regional and theater 
missile defense warrants increased focus. The preponderance of the 
threats we face in the Pacific are short, medium, and intermediate 
range ballistic missiles.
                     missile defense relationships
    Question. What is your understanding of the current relationship 
between PACOM, NORTHCOM, and STRATCOM with respect to BMD deployments 
and operations, for both regional and long-range missile defense?
    Answer. As defined in the Unified Command Plan 2008, Commander 
NORTHCOM is charged with defense of the Homeland that includes the 
continental United States and Alaska. Commander, PACOM is responsible 
for the defense of Hawaii and all other defended areas within the PACOM 
AOR. The two commands work together, either as the supported or 
supporting commander, contingent upon the threat and defended area, to 
defend their respective AORs. Commander, STRATCOM is the global 
synchronizer for planning and coordinating global missile defense.
                      aegis-class ship assignments
    Question. What is your understanding of the arrangement whereby 
Aegis-class destroyers and cruisers of the U.S. Pacific Fleet will be 
made available, or dedicated, to BMD missions, and what impact will 
this arrangement have on the capability of PACOM and U.S. Pacific Fleet 
to fulfill their other missions involving Aegis-class ships?
    Answer. Commander, PACOM and Commander, NORTHCOM have established a 
system of readiness conditions for theater and global missile defense, 
respectively. Aegis requirements are clearly delineated in these 
readiness conditions, and they provide the Commander, U.S. Pacific 
Fleet, the opportunity to integrate these requirements into his 
planning and resource allocation processes, ensuring his ability to 
fulfill the missile defense mission and the other Aegis specific 
missions for which he is responsible.
    Question. If confirmed, how would you propose to strike an 
appropriate balance between missile defense and non-missile defense 
missions for ships of the U.S. Pacific Fleet?
    Answer. If confirmed, I will promote and ensure close and frequent 
coordination between commanders with BMD responsibilities. Key to 
striking the right balance is PACOM's continued focus on integrating 
Patriot Advance Capabilities-3 (PAC-3), AN-TPY-2 Forward-Based X-Band 
Radar Transportable (FBX-T), and Terminal High Altitude Area Defense 
(THAAD) into the BMD architecture in order to improve its theater-wide 
BMD capability and reduce its reliance on Aegis ships. Finally, I will 
continue PACOM efforts to leverage potential allied contributions 
towards regional missile defense missions.
                    u.s. special operations command
    Question. What is your understanding of the requirements for 
coordination and cooperation between U.S. Special Operations Command 
teams working to fulfill the global terrorism mission, PACOM, and the 
U.S. mission chiefs in the relevant countries?
    Answer. Coordination and cooperation between PACOM, ambassadors, 
and Special Operations Command teams remain essential to success in the 
global war on terror. Commander, PACOM assumes Operational Control 
(OPCON) of Special Operations Forces once those forces enter the AOR. 
In all cases, ambassadors remain responsible for activities in their 
respective country, to include theater security cooperation activities 
involving Special Operations Forces. As a result, the military 
commander exercising OPCON is required to coordinate activities with 
the respective ambassador.
    Additionally, coordination with U.S. Special Operations Command and 
country ambassadors continues even after OPCON has been assumed by 
Commander, PACOM. In certain circumstances, U.S. Special Operations 
Command may retain OPCON of forces conducting specialized missions or 
crossing geographic combatant commander boundaries.
    Question. If confirmed, would you seek to change any aspects of 
these requirements?
    Answer. I do not foresee recommending changes in the current 
commend and support relationships.
    Question. Some have suggested that the rank of Theater Special 
Operations Commanders should be increased, as should the size of their 
respective staffs, to be commensurate with the level of special 
operations conducted in certain geographic regions.
    Given the number of Special Operations personnel deployed in the 
PACOM theater in recent years, do you believe such measures should be 
considered?
    Answer. In 2006, the Commander, Special Operations Command Pacific 
position was elevated from a one-star to two-star billet. At this time, 
I am comfortable with this rank structure. Additionally, Special 
Operations Command recently completed a manpower study that addressed 
SOF mission growth and the associated manpower to support. I am 
comfortable with this evolving process.
                         technology priorities
    Question. PACOM has been active in the Joint Concept Technology 
Development (JCTD) process and currently has several projects in the 
program, as well as cooperative activities with Service and Defense 
Advanced Research Project Agency (DARPA) research programs.
    If confirmed, what steps would you expect to take to make your 
requirements known to the Department's science and technology (S&T) 
community to ensure the availability of needed equipment and 
capabilities in the long-term?
    Answer. If confirmed, I will support efforts to strengthen the 
partnership between PACOM and the S&T community. In so doing, PACOM 
will help researchers better understand the context of our operational 
problems, while we gain better insight into solutions maturing through 
Service efforts. I plan to use the Integrated Priority List (IPL) as 
the foundation for these discussions. JCTDs will continue to be an 
important path for maturing S&T efforts into operational capabilities. 
Additionally, I will explore new S&T initiatives with key allies and 
partners across Asia Pacific to meet shared operational challenges and 
increase interoperability. Ultimately, I would like to see at least one 
JCTD or Rapid Technology Transition project against each of the IPL 
gaps and corresponding S&T capability development partnership projects 
with key allies and partners in the Asia Pacific region.
                         exercises and training
    Question. What is your assessment of the current PACOM training and 
exercise program, including those designed to train personnel for peace 
and stability operations?
    Answer. My assessment is the PACOM exercise program is very 
effective, as evidenced by successful disaster relief operations, 
responsive support to overseas contingency operations in the PACOM and 
CENTCOM AORs, and the improvements in the quality of our regional 
partners' peacekeeping forces.
    I recognize the importance of a rigorous training and exercise 
program. If confirmed, PACOM training and exercises will continue to 
receive emphasis based on their value in maturing U.S. readiness and 
capabilities and improving our ability to operate with allies and 
partners in the region.
    Question. Do you believe that the PACOM's training and exercise 
program currently has adequate funding and personnel resources?
    Answer. I do not yet have a full appreciation of the funding and 
resource status of the PACOM training and exercise program. I am aware 
of the congressionally-created Combatant Command Exercise Engagement 
(CE2) account that supports joint training. From my observations, this 
account has significantly enabled conduct of our training and exercise 
program. If confirmed, I will ensure resources are effectively used and 
advocate for additional resources when necessary.
    Question. What are your views on how the PACOM, in concert with the 
U.S. Joint Forces Command (JFCOM), could improve its training and 
exercise program, including training and exercises for peace and 
stability operations?
    Answer. I view collaboration with JFCOM and the continuous 
assessment such interaction fosters as central to improving the 
command's training program. I also anticipate the new Pacific 
Warfighting Center (PWC), when integrated into JFCOM's global grid of 
warfighting centers, will allow PACOM and JFCOM to continue to 
cooperatively develop transformational training concepts for 
traditional warfighting, peace and stability operations, irregular 
warfare, and a whole-of-government approach to mission execution. If 
confirmed, PACOM will continue to pursue interagency and multinational 
and multilateral participation in its training and exercise program to 
replicate the operating environment as realistically as possible.
    Our GPOI training with partner nations continues to advance, 
successfully producing capable, ready forces to address peacekeeping-
related requirements.
    Question. The Commandant of the Marine Corps has expressed 
reservations, in the context of the planned move of U.S. marines from 
Okinawa to Guam, about the ability to do effective collective training 
of marines on Guam or in the Northern Marianas.
    Do you share that concern?
    Answer. I understand the Commandant's training concerns associated 
with the move to Guam. I believe continued collaboration with all of 
the elements involved with the move is critical to successfully working 
through the many issues associated with an endeavor of this magnitude.
      prisoner of war/missing personnel office accounting efforts
    Question. Recovery of remains of U.S. servicemembers from World War 
II, the Korean War, and the Vietnam war continues to be a very high 
priority and the Joint Prisoner of War/Missing Personnel Office 
Accounting Command (JPAC) is critical to recovery and identification 
efforts.
    What is your understanding of the responsibilities of JPAC and its 
relationship to the Defense Prisoner of War (POW) and Missing Personnel 
Office (DPMO)?
    Answer. JPAC conducts operations to support accounting of personnel 
unaccounted for as a result of hostile acts. PACOM provides higher 
headquarters support and direction, and interface between JPAC and the 
Joint Staff and OSD. The POW/DPMO exercises policy, control, and 
oversight within DOD. DPMO, and JPAC coordinate directly on routine 
POW/Missing in Action (MIA) issues.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts at JPAC and throughout the PACOM AOR?
    Answer. JPAC resources and accounting efforts are focused not only 
in the PACOM region, but throughout the world. If confirmed, I will 
encourage full cooperation by the host nations where we conduct POW/MIA 
activities and continue to reinforce U.S. Government priorities and 
commitment in our accounting and recovery efforts with leaders of these 
countries and the respective U.S. ambassadors.
    Question. If confirmed, what steps would you take to ensure the 
adequacy of resources available for this work?
    Answer. If confirmed, it is my duty to ensure JPAC accomplishes 
their mission. I will work to ensure JPAC is fully resourced to 
accomplish its mission and pledge that we will not compromise the 
integrity of the mission or the ability of the U.S. Government to 
provide the fullest possible accounting to the families of our Nation's 
unaccounted. I am committed to maintain and expand, when requirements 
dictate, the scientific expertise and integrity inherent in JPAC today. 
PACOM will provide the JPAC Commander its full support in the conduct 
of its mission.
                            quality of life
    Question. Combatant commanders have an interest in the quality of 
life of military personnel and their families assigned within their 
AOR.
    In your view, what is the role and responsibility of combatant 
commanders for the quality of life of personnel assigned to their AOR?
    Answer. The combatant commander is a strong advocate for improving 
the quality of life for assigned personnel. The commander ensures that 
quality of life issues are articulated to community leaders, military 
installation commanders, DOD policymakers, and Members of Congress. The 
commander must also be a synergistic partner with the Office of the 
Secretary of Defense, AOR subunified commands, other combatant 
commands, local industry, and government and non-DOD agencies to garner 
support and resources for quality of life programs.
    Question. If confirmed, what would you do to enhance quality of 
life programs for military members and their families within the PACOM?
    Answer. If confirmed, I would make quality of life for the 
servicemembers and families of PACOM one of my top priorities. People 
are our most important resource and constant focus on quality of life 
initiatives is vital to effectively implementing our ``partnership, 
readiness, and presence'' strategy in the region.
    First and foremost, it would be my responsibility to commit 
resources and support funding for the broad array of initiatives and 
efforts that comprise an effective quality of life program. I would 
ensure adequate and appropriate access for our servicemembers to the 
high quality training, facilities, equipment, and technology necessary 
to ensure safe and effective mission completion. I would also ensure 
that our servicemembers and their families have access to the 
exceptional services, facilities, and programs they deserve given their 
commitment to our Nation (housing, medical/dental, commissary and 
exchange, child care, and morale, welfare, and recreations facilities).
    Tailored and effective quality of life programs and services 
demonstrate our commitment to our personnel, both at home and deployed, 
by appropriately compensating them for their service and providing for 
their families. Our fighting forces deserve exceptional access to such 
quality of life programs and services and I stand committed to ensuring 
they get them.
    Question. What is your view of the challenges associated with 
global rebasing on the quality of life of members and their families in 
the PACOM AOR (including adequate health care services and DOD 
schools)?
    Answer. The biggest challenge will be preserving the quality of 
life for our servicemembers and their families while we realign our 
forces in theater.
    Throughout the transition process, we should focus our efforts on 
maintaining quality housing, DOD schools, commissary and exchange 
services, medical/dental facilities, higher education, work life, 
family, and community support programs for our people. We should 
sustain current levels of service during the transformation `out' phase 
and ensure these systems are in place before families arrive in the 
area.
    Question. What steps do you believe need to be taken in Guam to 
ensure that adequate services are available to U.S. personnel and their 
dependents?
    Answer. As we plan for increased military development in Guam, we 
must ensure organizations and agencies that provide services to U.S. 
personnel and their dependents are included in the planning process, 
and adequate funding for expansion of these services is provided.
    The Joint Guam Program Office (JGPO), established by the Deputy 
Secretary of Defense and tasked with executing this comprehensive 
redevelopment effort, is leading the planning process and is engaging 
DOD components and other stakeholders to program and budget for 
adequate services for U.S. personnel and their dependents in Guam. If 
confirmed, I will ensure JGPO is fully informed of PACOM quality of 
life requirements on Guam.
              humanitarian assistance and disaster relief
    Question. What should be the role for the U.S. military in 
humanitarian assistance and disaster relief in the Asia-Pacific region?
    Answer. The role of the U.S. military during humanitarian 
assistance and disaster relief contingencies is to support U.S. 
efforts, specifically upon the request of host nations via U.S. 
Department of State, to save lives, alleviate human suffering, and 
preclude regional conflicts. The request for assistance is normally 
initiated by or through the U.S. ambassador, and is typically of short 
duration for immediate needs that cannot be fulfilled by the host 
nation or the international relief community.
    Question. The Asia-Pacific region has experienced some of the worst 
natural disasters in recent history, including the 2004 Indian Ocean 
tsunami. In support of U.S. Agency for International Development and 
the U.S. Government's broader relief efforts, DOD has played an 
instrumental role in the international response to recent Asian 
disasters (e.g. Burma, Philippines, Bangladesh, China) and is deeply 
involved in interagency disaster preparedness/mitigation planning 
efforts.
    DOD HA/DR efforts have provided unique military capabilities 
(strategic airlift, logistics, transportation, communication) and have 
made significant contributions by saving lives, reducing human 
suffering, helping build partner capacities, and preventing crisis from 
becoming conflicts thereby increasing security and stability in the 
region. Such DOD contributions should continue in the Asia-Pacific 
region.
    Are the resources necessary to fulfill this role currently 
available to the PACOM commander? If not, what additional resources are 
necessary?
    Answer. The required resources are either currently assigned to 
PACOM or are readily available through normal mechanisms for providing 
logistical support or acquiring and providing specifically identified 
commodities, such as shelter, food, water, or medical supplies.
                       law of the sea convention
    Question. The United Nations Convention on the Law of the Sea is 
pending consideration in the United States Senate.
    What is your view on whether or not the United States should join 
the Law of the Sea convention?
    Answer. Like the Chairman of the Joint Chief of Staff and the Chief 
of Naval Operations, I strongly support U.S. accession to the Law of 
the Sea Convention.
    Question. How would being a party to the Law of the Sea Convention 
help or hinder the United States' security posture in the Asia-Pacific 
region?
    Answer. Being a party to the Law of the Sea Convention would 
enhance U.S. security posture in the Asia-Pacific region. As the Chief 
of Naval Operations has testified, the Law of the Sea Convention 
provides a robust legal regime for global operations by U.S. Armed 
Forces. Particularly important, it codifies navigation and over flight 
rights as well as high seas freedoms necessary for global mobility of 
our forces throughout the region. The Convention also codifies the 
right of warships to seize pirates and pirate vessels, the right of 
warships to approach and visit commercial vessels, the right to lay and 
maintain submarine cables (such as internet cables) on continental 
shelves, and the sovereign immunity of warships, public vessels, and 
military aircraft.
    Many nations are already signatories to the Convention and I 
believe it is in our national security interests to do the same. Our 
current non-party status constrains our ability to develop enduring 
partnerships, inhibits our efforts to expand the Proliferation Security 
Initiative, and elevates the level of risk our sailors assume when they 
undertake their duties to preserve navigational rights and freedoms. I 
believe we ought to eliminate all barriers to collaboration and 
cooperation with like-minded partners in the maritime domain--accession 
to the Law of the Sea Convention would facilitate that process.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, PACOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duty constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                    joint pow/mia accounting command
    1. Senator McCain. Admiral Willard, the Joint Prisoner of War/
Missing in Action (POW/MIA) Accounting Command (JPAC) plays a critical 
role in recovering and identifying the remains of missing military 
members. Recovery and identification of remains of U.S. servicemembers 
from World War II, the Korean War, and the Vietnam war continues to be 
a very high priority. The Under Secretary of Defense for Policy 
reported to Congress 2 years ago on the organization, management, and 
budgeting of JPAC, essentially supporting continuation of the status 
quo; however, proposals for organizational and resourcing changes aimed 
at increasing recoveries and identification of remains continue to be 
heard. What is your understanding of the responsibilities of JPAC and 
its relationship to the Defense POW and Missing Personnel Office?
    Admiral Willard. JPAC conducts operations to support accounting of 
personnel unaccounted for as a result of hostile acts. U.S. Pacific 
Command (PACOM) provides higher headquarters support and direction, and 
interface between JPAC and the Joint Staff and the Office of the 
Secretary of Defense. The Defense POW/Missing Personnel Office (DPMO) 
exercises policy, control, and oversight within the Department of 
Defense (DOD). DPMO and JPAC coordinate directly on routine POW/MIA 
issues.

    2. Senator McCain. Admiral Willard, in your view is the current 
organization, management, and budget structure of JPAC optimal?
    Admiral Willard. Given my limited exposure to the organization, I 
believe JPAC is currently structured and resourced to accomplish their 
current mission requirements. That said, if confirmed, I look forward 
to reviewing the results of the PACOM funded, comprehensive manpower 
study expected to be completed this September, to see what 
improvements, if any, can be made.

    3. Senator McCain. Admiral Willard, is JPAC, in your view, 
sufficiently resourced and funded to support DOD goals for identifying 
the remains of missing servicemembers?
    Admiral Willard. I believe JPAC is resourced to accomplish their 
current mission requirements. With the exception of the Korean War (due 
to the suspension of operations in the Democratic People's Republic of 
Korea), JPAC has met the DOD goals established in October 2006. I 
understand the DPMO is in the process of developing policy guidance for 
resource allocation across conflicts which will provide guidelines for 
allocating resources to reduce cases on JPAC excavation list and 
determining goals for the number of identifications established per 
year. Once that guidance is issued, a review of the resources will be 
made to ensure JPAC can meet the new requirements.

    4. Senator McCain. Admiral Willard, if confirmed, would you support 
exploring new organizational structures, methods, and procedures, to 
include outsourcing, to increase JPAC's capabilities?
    Admiral Willard. I do support exploring improvements in the 
organizational structure, methods, and procedures, to include 
outsourcing, that show promise of increasing JPAC's capabilities.

    5. Senator McCain. Admiral Willard, what, if any, specific steps 
would you favor to improve accomplishment of the mission of JPAC and 
other organizations involved in the POW/MIA accounting mission?
    Admiral Willard. At this time I do not have any specific 
recommendations, but I am looking forward to reviewing the results of 
the PACOM funded, comprehensive manpower study of JPAC due out this 
September. If confirmed, I intend to review their analysis and 
recommendations, and then take those steps that will result in an 
improvement of our ability to accomplish this important mission.
                                 ______
                                 
    [The nomination reference of ADM Robert F. Willard, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 1, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    ADM Robert F. Willard, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Robert F. Willard, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                            Department of the Navy,
                   Office of the Chief of Naval Operations,
                                        2000 Navy Pentagon,
                                      Washington, DC, May 20, 2009.
Hon. Carl Levin, Chairman
Senate Armed Services Committee,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: The President, under the provisions of section 
601, title 10, U.S.C., has submitted to the Senate the nomination of 
ADM Robert F. Willard, USN, for reappointment to the grade of admiral.
    Admiral Willard is presently serving as Commander, United States 
Pacific Fleet. He will be assigned as Commander, United States Pacific 
Command. He is 58 years of age.
    This action will not result in the Navy exceeding the number of 
authorized four-star positions.
    For the information of the committee, I am enclosing a career 
resume on Admiral Willard which includes a summary of his joint duty 
assignments.
            Most respectfully,
                                      R.S. Erskine,
                                     Director, Flag Officer
                                       Management and Distribution.
cc: The Honorable John McCain,
     Ranking Member,
     Senate Armed Services Committee,
     United States Senate,
     Washington, DC.
                                 ______
                                 
   Transcript of Naval Service for ADM Robert Frederick Willard, USN


05 DEC 1950...............................  Born in Bell, CA
30 JUN 1969...............................  Midshipman, U.S. Naval
                                             Academy
06 JUN 1973...............................  Ensign
06 JUN 1975...............................  Lieutenant (junior grade)
01 JUL 1977...............................  Lieutenant
01 JUL 1982...............................  Lieutenant Commander
01 OCT 1987...............................  Commander
01 SEP 1992...............................  Captain
01 SEP 1998...............................  Rear Admiral (lower half)
10 AUG 2000...............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 JUN 2001...............................  Rear Admiral
18 JUL 2002...............................  Vice Admiral
18 MAR 2005...............................  Admiral, service continuous
                                             to date
 

Assignments and duties:

------------------------------------------------------------------------
                                               From             To
------------------------------------------------------------------------
Naval Aviation Schools Command (DUINS)         July 1973       June 1974
 (Student)..............................
Training Squadron Two Five (Student)....       June 1974       Nov. 1974
Fighter Squadron One Two Four (Ready           Dec. 1974       Dec. 1975
 Replacement Pilot).....................
Fighter Squadron Two Four (Legal               Jan. 1976       June 1978
 Officer)...............................
Fighter Squadron One Two Four (Quality         June 1978       Oct. 1981
 Assurance Officer).....................
Fighter Squadron Two (Operations               Oct. 1981       June 1984
 Officer)...............................
Navy Fighter Weapons School Naval Air          July 1984        May 1987
 Station Miramar, CA (Operations
 Officer)...............................
XO, Fighter Squadron One Two Four.......        May 1987       Jan. 1988
CO, Fighter Squadron Five One...........       Jan. 1988       Aug. 1990
Naval Nuclear Power School (DUINS)......       Oct. 1990        May 1991
Naval Nuclear Propulsion Training Unit         June 1991       Nov. 1991
 (DUINS)................................
Naval Reactors, Department of Energy           Nov. 1991       Apr. 1992
 (DUINS)................................
XO, USS Carl Vinson (CVN 70)............        May 1992       Nov. 1993
Commander, Amphibious Group Three              Nov. 1993       Sep. 1994
 (Assistant Operations/Readiness
 Officer)...............................
CO, USS Tripoli (LPH 10)................       Sep. 1994       June 1995
Naval Reactors, Department of Energy           July 1995       July 1995
 (DUINS)................................
CO, USS Abraham Lincoln (CVN 72)........       July 1995       Mar. 1998
Office of the CNO (TEMDU)...............       Mar. 1998       Sep. 1998
Joint Staff (Deputy Director, Current          Sep. 1998       Sep. 2000
 Readiness and Capabilities) (J-38).....
Commander, Carrier Group Five...........       Sep. 2000       Oct. 2001
Commander, U.S. Pacific Fleet (Deputy          Oct. 2001       July 2002
 and Chief of Staff)....................
Commander, Seventh Fleet................       July 2002       Aug. 2004
Joint Staff (Director, Force Structure,        Aug. 2004       Mar. 2005
 Resources and Assessment, J8, Joint
 Staff).................................
Vice Chief of Naval Operations..........       Mar. 2005       Apr. 2007
Commander, U.S. Pacific Fleet...........       Apr. 2007         To Date
------------------------------------------------------------------------

Medals and awards:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Legion of Merit with two Gold Stars
    Meritorious Service Medal with two Gold Stars
    Navy and Marine Corps Commendation Medal with three Gold Stars
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation
    Meritorious Unit Commendation
    Navy ``E'' Ribbon with three Es
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal with three Bronze Stars
    Vietnam Service Medal with one Bronze Star
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Service Medal
    Korean Defense Service Medal
    Sea Service Deployment Ribbon with one Silver Star and one Bronze 
Star
    Navy and Marine Corps Overseas Service Ribbon with one Bronze Star
    Expert Rifleman Medal
    Expert Pistol Medal

Special qualifications:
    BA (Physics), U.S. Naval Academy, 1973
    Designated Naval Aviator, November 1974
    Designated Navy Nuclear Propulsion, April 1991
    Capstone, 1998-2

Personal data:
    Wife: Donna Joy of Falls Church, VA
    Children: Jennifer Lynn Willard (Daughter), Born: 25 August 1972
    Mark R. Willard (Son), Born: 15 June 1977
    Byron F. Willard (Son), Born: 15 June 1977

Summary of joint duty assignments:

------------------------------------------------------------------------
                  Assignment                         Dates         Rank
------------------------------------------------------------------------
Joint Staff (Deputy Director, Current            Sep. 98-Sep. 00    RDML
 Readiness and Capabilities) (J-38)..........
Joint Staff (Director, Force Structure,          Aug. 04-Mar. 05    VADM
 Resources and Assessment, J8, Joint Staff)..
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers as determined by the committee, to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Robert F. 
Willard, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert F. Willard.

    2. Position to which nominated:
    Commander, U.S. Pacific Command.

    3. Date of nomination:
    June 1, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 5, 1950; Bell, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Donna Joy (Yelverton) Willard.

    7. Names and ages of children:
    Jennifer Lynn Willard, 36.
    Bryan Frederick Willard, 31.
    Mark Robert Willard, 31.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Naval Academy Alumni Association; Association of Naval Aviators; 
U.S. Naval Institute; Navy League of the United States; and the 
Tailhook Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements other than those 
listed on the service record extract provided to the committee by the 
executive branch.
    COMSEVENTHFLT: Award from Emperor Japan and award from President 
Republic of Korea (inadvertently left off of the 2007 questionnaire).

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Robert F. Willard.
    This 20th day of March, 2009.

    [The nomination of ADM Robert F. Willard, USN, was reported 
to the Senate by Chairman Levin on July 29, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 31, 2009.]

                                     


 
  NOMINATIONS OF HON. JOHN M. McHUGH TO BE SECRETARY OF THE ARMY; DR. 
 JOSEPH W. WESTPHAL TO BE THE UNDER SECRETARY OF THE ARMY; AND JUAN M. 
   GARCIA III TO BE ASSISTANT SECRETARY OF THE NAVY FOR MANPOWER AND 
                            RESERVE AFFAIRS

                              ----------                              


                        THURSDAY, JULY 30, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, E. 
Benjamin Nelson, Webb, McCaskill, Udall, Hagan, Begich, McCain, 
Inhofe, Chambliss, Thune, and Collins.
    Also present: Senators Schumer, Cornyn, and Hutchison.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, 
professional staff member; Jessica L. Kingston, research 
assistant; Terence K. Laughlin, professional staff member; 
Gerald J. Leeling, counsel; Peter K. Levine, general counsel; 
and William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Daniel A. Lerner, professional staff member; 
Lucian L. Niemeyer, professional staff member; Christopher J. 
Paul, professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Paul J. 
Hubbard.
    Committee members' assistants present: Christopher Griffin 
and Todd M. Stein, assistants to Senator Lieberman; Carolyn A. 
Chuhta, assistant to Senator Reed; Nick Ikeda, assistant to 
Senator Akaka; Ann Premer, assistant to Senator Ben Nelson; 
Patrick Hayes, assistant to Senator Bayh; Gordon I. Peterson, 
assistant to Senator Webb; Tressa Steffen Guenov, assistant to 
Senator McCaskill; Jennifer Barrett, assistant to Senator 
Udall; Roger Pena, assistant to Senator Hagan; Lindsay Young, 
assistant to Senator Begich; Brandon Andrews and Anthony J. 
Lazarski, assistants to Senator Inhofe; Lenwood Landrum and 
Sandra Luff, assistants to Senator Sessions; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Erskine W. Wells III, 
assistant to Senator Wicker; and Chip Kennett, assistant to 
Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Representative John McHugh to be Secretary of the Army, Dr. 
Joseph Westphal to be Under Secretary of the Army, and Juan 
Garcia III to be Assistant Secretary of the Navy for Manpower 
and Reserve Affairs.
    Each of our nominees has a long history of public service. 
Congressman McHugh has represented the people of northern New 
York with great distinction for over 16 years, serving on the 
House Armed Services Committee (HASC), as well as chair and 
ranking member of the Military Personnel Subcommittee and most 
recently as the ranking member of the full committee.
    Dr. Westphal has extensive experience in education and 
government, including service on the staff of the House Budget 
Committee, as a policy advisor at the Environmental Protection 
Agency, and as Assistant Secretary of the Army for Civil Works.
    Mr. Garcia has a lifelong association with the Navy as the 
son of a naval aviator and is one himself through his own 12 
years of service. After leaving the Navy in 2004, Mr. Garcia 
has practiced law and from 2006 to last year served as a member 
of the Texas House of Representatives for the people of south 
Texas.
    We welcome our nominees. We especially welcome their 
families to today's hearing. Senior military officials put in 
long hours every day. We appreciate the sacrifices that our 
nominees and their families are willing to make to serve our 
country. As is our tradition and our pleasure, we look forward 
to the introductions of family members by our nominees for 
those members who are with us today when the nominees make 
their opening statements.
    If confirmed, Representative McHugh and Dr. Westphal will 
assume leadership of the Army at a difficult time. Over the 
last 7 years, the Army has risen to every challenge and 
inspired this Nation with its courage, commitment, and honor in 
the most dangerous and difficult circumstances. Nothing brings 
the people of the United States together, regardless of 
ideology or world views, more than the deep appreciation and 
support that we all share for America's troops and their 
families.
    The many sacrifices, large and small, of soldiers and their 
families weigh upon all Americans, and we are reminded of that 
time and time again as in the President's announcement a few 
days ago that the Medal of Honor will be awarded posthumously 
and presented to the parents of Sergeant 1st Class Jared Monti 
for heroism above and beyond the call of duty at the cost of 
his own life in Afghanistan.
    Leadership at every level from sergeants to secretaries of 
soldiers and their families is an awesome responsibility, and 
the Nation's expectations of these nominees could not be 
higher.
    If confirmed, Mr. Garcia will assume leadership of Navy 
personnel policies and programs at a challenging time. The Navy 
has halted its planned Active Duty end strength decreases and 
continues to struggle, as do all the Services, with the rising 
costs of personnel entitlements and military health care. The 
medical and dental readiness of Reserve personnel and the 
recruiting and retention of medical professionals remain 
persistent challenges. These are difficult issues that are 
going to require Mr. Garcia's personal and total attention.
    We look forward to the testimony of our nominees and to 
learn more about their ideas on how to deal with the many 
issues that confront the Army and the Navy.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I want to 
thank our colleagues, Senators Collins, Schumer, Hutchison, and 
Cornyn, who are here on behalf of the nominees. I will make my 
remarks brief and look forward to hearing from them and the 
witnesses.
    I welcome them and their families, and I thank them for 
their willingness to serve in these positions of great 
responsibility at a critical time in our history. Congressman 
McHugh, Dr. Westphal, and Mr. Garcia are all well qualified to 
serve in these positions of responsibility in the Departments 
of the Army and Navy.
    I have known Congressman McHugh since 1993. I greatly 
admire his record of service to the people of northern New York 
and the military men and women in his district. Sixteen years 
on the HASC makes Congressman McHugh uniquely qualified to 
understand the challenges the Army faces today.
    I have to say, though, there is an aspect that I find 
troubling and that is a record of accepting campaign 
contributions from lobbyists like Paul Magliocchetti and his 
PMA lobbying firm from which Congressman McHugh accepted more 
than $160,000.
    The PMA lobbying group is under investigation by the 
Federal Bureau of Investigation which raided Magliocchetti's 
office and home last March looking for evidence of campaign 
finance violations and illegal dealings with lawmakers. There 
is no doubt in my mind that there is a lot more to be learned 
about PMA and their lobbying activities and earmarks.
    I have no reason to believe that Congressman McHugh behaved 
improperly in any way, but it does create an appearance problem 
and one that I do not agree with. As I have said many, many 
times on the floor of the U.S. Senate this kind of earmarking 
breeds corruption which then lowers the opinion and reputation 
of the Congress of the United States. I do not view this as 
disqualifying Congressman McHugh. I think he is uniquely 
qualified, but it does blemish what otherwise is an exemplary 
record of public service.
    With respect to the Department of the Army, I hope I speak 
for all members of the committee when I say I could not be 
prouder of the men and women who serve, and this Nation owes an 
enormous debt of gratitude to the Army which has carried the 
fight since 2001 and continue to do so today. I particularly 
want to express my concern for Private First Class Bowe 
Bergdahl and his family and note that he is in our thoughts and 
prayers.
    Dr. Westphal, who is nominated for the position of Under 
Secretary of the Army, served as Assistant Secretary of the 
Army for Civil Works and for a brief period in 2001 as Acting 
Secretary of the Army. He brings a wealth of experience to this 
position.
    Mr. Garcia is nominated to be the Assistant Secretary of 
the Navy for Manpower and Reserve Affairs. Coming from a Navy 
family with 13 years of Active Duty as a naval aviator and 
ongoing service in the Naval Reserve, he is extremely well 
qualified for this position.
    I thank Dr. Westphal, Mr. Garcia, and Congressman McHugh 
and their families for their willingness to serve.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Inhofe wanted to make a statement in the record at 
this point.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Yes. Just one brief comment, Mr. Chairman. 
I want all three of our nominees to know that I have a Senate 
Environment and Public Works Committee hearing where I am the 
ranking member and attendance is required at 10 o'clock, so I 
will not be here.
    I just want you to know that two of these nominees, Mr. 
Chairman, I know very well. I see Steve Buyer sitting next to 
John McHugh back there, and I used to sit between the two of 
them on the HASC and in those long, long meetings, got to know 
them very well. I am delighted and I am looking forward to 
working with Congressman McHugh.
    Something you might not know, but Joe Westphal was with 
Oklahoma State University (OSU) for many years. I have known 
him for 20 years, and I am just delighted I will be working 
with him again. I wanted to make sure he gets confirmed in time 
to go to the opening game of OSU and Georgia, and that should 
be a lot of fun.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We are delighted we have four of our colleagues here to 
make introductions this morning. They have taken time from 
their extraordinarily busy schedules these days to do this. I 
know our nominees are grateful, and we are too, that they will 
be here. Let me start with Senator Schumer who is going to 
introduce his fellow New Yorker, Representative McHugh.

  STATEMENT OF HON. CHARLES E. SCHUMER, U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I want to thank 
you, Ranking Member McCain, and all of my colleagues for the 
honor--and it is a true honor for me--to support the nomination 
of John McHugh as Secretary for the U.S. Army.
    I want to welcome members of the McHugh family who I know 
are especially proud to be here today in support of this 
important nomination.
    John McHugh is my friend, my colleague, a man of great 
integrity, an outstanding New Yorker, and a great American who 
exemplifies so many of the qualities that make the American 
people a great people and make America a great country.
    He is a nominee who is more than qualified for the post of 
Secretary of the Army for many reasons, but there are three in 
particular: patriotism, service, and leadership. He is a 
nominee with stellar credentials and a commitment to our 
country that is unwavering. John's pride in his country is only 
matched by the pride of those such as myself who are delighted 
to call him a fellow New Yorker. Just to watch John with the 
troops at Fort Drum, which is in his congressional district, 
and of course, in New York--and we are so proud of the 10th 
Mountain Division and the men and women who serve--and to see 
how much they admire him and how much he cares for them is no 
better testament for why he deserves to be supported for this 
position.
    John was born in Watertown, NY. He is one of Watertown High 
School's most famous graduates. He went on to graduate from 
Utica College in 1970, received a Bachelors degree and than a 
Masters at the Nelson A. Rockefeller Graduate School of Public 
Affairs at the State University of New York in Albany. He began 
his commitment to public service as a young man while serving 
as an assistant to Watertown's city manager, then served as an 
aide to one of the great State Senators from New York, Douglas 
Barclay, from 1977 to 1984, when he was elected as a successor, 
served as a member of the State Senate until his election to 
the U.S. House of Representatives in 1992. He would go on to be 
reelected eight times with no substantive opposition, even 
running unopposed in 2002.
    Prior to his nomination, as this committee well knows, he 
served as the ranking member on the HASC and a senior member of 
the House Oversight and Government Reform Committee, was also a 
member of the House Permanent Select Committee on Intelligence 
from 2005 to 2007 where he worked diligently to ensure our 
Nation stayed on the cutting edge of global intelligence and 
counterintelligence gathering.
    While in Congress, again as the committee well knows, John 
became known as a champion of our men and women in uniform. He 
has demonstrated a steadfast commitment to keeping America's 
Army the best trained, the best equipped, and the best the 
world has ever seen. I can personally attest as well, Mr. 
Chairman, having worked with him, just what a fine and decent 
human being he is. He is just a fine person. Whether we were 
working to develop the old Plattsburg Air Force Base, fighting 
to protect the Adirondacks from acid rain, establishing a new 
border station at Champlain, he was diligent, put in every 
minute of time that was necessary. He was intelligent. He got 
the things done and he did it all with grace and a quiet ease 
that was always, always impressive.
    There is one accomplishment that I think truly sums up his 
commitment to both the military and the community that he 
serves and that was the creation of the Fort Drum regional 
health care planning organization. Fort Drum is one of the few 
military installations without its own hospital. John, 
recognizing that more needed to be done to protect our 
soldiers' health while staying at the base, helped create a 
pilot program that created health care arrangements between the 
base and the local health centers. The program was so 
successful it was expanded, and now bases across the country 
have the opportunity to set up and take advantage of similar 
programs.
    I would like my entire statement to be read into the 
record, Mr. Chairman.
    But I am just so proud that the President chose Congressman 
McHugh, so proud that he is willing to serve in this important 
post, and proud to be here in support of his nomination today.
    [The prepared statement of Senator Schumer follows:]
            Prepared Statement by Senator Charles E. Schumer
    Thank you, Mr. Chairman and Ranking Member McCain.
    Welcome to the members of the McHugh family, who I know are 
especially proud to be here today in support of this most important 
nomination.
    John Michael McHugh is a nominee who is more than qualified for the 
post of Secretary of the Army for many reasons, but here are three in 
particular: patriotism, service, and leadership.
    He is a nominee with stellar credentials and a commitment to our 
country that is unwavering. John's pride in his country is only matched 
by the pride of those such as myself who are delighted to call him a 
fellow New Yorker.
    John was born in Watertown, New York and is one of Watertown High 
School's most famous graduates. He went on to graduate from Utica 
College in 1970 with a Bachelor's degree and received a Master's degree 
from the Nelson A. Rockefeller Graduate School of Public Affairs at the 
State University of New York.
    John began his commitment to public service as a young man while 
serving as an assistant to Watertown's city manager from 1971 to 1977. 
He then served as an aide to State Senator H. Douglas Barclay from 1977 
to 1984, when he was elected as his successor. He served as a member of 
the New York State Senate until his election to the U.S. House of 
Representatives in 1992. Impressively, he would go on to be reelected 
eight times with no substantive opposition, even running unopposed in 
2002.
    Prior to his nomination to be Secretary of the Army, John served as 
the ranking Member on the House Armed Services Committee, and also as a 
senior member of the House Oversight and Government Reform Committee.
    Additionally, he was a member of the House Permanent Select 
Committee on Intelligence from 2005 to 2007 where he worked to ensure 
that our Nation stayed on the cutting edge of global intelligence and 
counterintelligence gathering.
    While in Congress John became known as a champion of our men and 
women in uniform. He has demonstrated a steadfast commitment to keeping 
America's Army the best trained, the best equipped, and the best the 
world has ever seen.
    John and I have been friends and partners in government for almost 
two decades, so I can personally attest to what a fine and decent human 
being he is. Whether we were working to develop the old Plattsburg Air 
Force Base, fighting to protect the Adirondacks from acid rain, or 
establish a new border station at Champlain, John has shown time and 
time again his intelligence, his grace, and his desire to serve those 
that elected him to office.
    There is one accomplishment that I think truly sums up John's 
commitment to both the military and the community that he serves, and 
that was the creation of the Fort Drum Regional Health Care Planning 
Organization. Fort Drum is one of the few military installations 
without its own hospital. The congressman, recognizing that more needed 
to be done to protect the soldiers' health while staying at the base, 
helped create a pilot program that created health care arrangements 
between the base and local health centers.
    This pilot program was so successful, it was expanded--and now 
bases across the country have the opportunity to set up and take 
advantage of similar programs.
    With John's confirmation, New York will be losing a tremendous 
public servant--but our loss will be America's gain, and I am confident 
that he will serve his country as well as he served the residents of 
the North Country and Central New York.
    I commend President Obama for selecting such a fine nominee and a 
leader from the U.S. Congress who is a shining example of the belief 
that our country's partisan disputes about foreign policy and military 
power should cease at our Nation's shores.
    Mr. Chairman, let me add that we would be hard pressed to find a 
better candidate than the one sitting alongside me today to be our 
Nation's next Secretary of the United States Army.
    I look forward to this hearing, and to Congressman McHugh's swift 
confirmation.

    Chairman Levin. Thank you very much, Senator Schumer.
    We know that each of you have tough schedules. Each of you 
are free to leave if you want after your own introductions.
    Senator Collins, you have a fellow Mainer to introduce 
here?

STATEMENT OF HON. SUSAN COLLINS, U.S. SENATOR FROM THE STATE OF 
                             MAINE

    Senator Collins. Thank you, Mr. Chairman.
    I do not think I have ever heard Senator Schumer speak so 
well of a Republican before in my life. [Laughter.]
    It really was just an amazing tribute.
    Senator Schumer. We all grow and evolve. [Laughter.]
    Senator Collins. Mr. Chairman, it is a great privilege to 
appear before you today to introduce Dr. Joseph Westphal, the 
President's nominee to be the Under Secretary of the Army.
    The people of Maine are proud of his strong ties to our 
State, and I am grateful for his remarkable career of service 
to our Nation.
    The challenging and complex responsibilities of this 
position require a person with the expertise in manpower, 
personnel management, reserve affairs, installations, 
environmental issues, weapons systems and equipment 
acquisition, communications, and financial management. It 
requires the ability to foster a spirit of cooperation with 
other branches of Service within the Pentagon, with our 
international allies, and with Congress. Above all, this 
position requires an individual as dedicated to our soldiers as 
they are to serving our country.
    Dr. Westphal is that person. He is a true renaissance man. 
In addition to being a scholar, a teacher, and an academic 
leader, he is a public servant with a distinguished career in 
such Departments as the Army, the Department of the Interior, 
and the Environmental Protection Agency (EPA). He has spent 
more than 10 years working in Congress on issues related to the 
environment, trade, and the economy.
    We Mainers came to know Dr. Westphal during his tenure from 
2002 until 2006 as the Chancellor of the University of Maine's 
system. He played a critical role in introducing the Department 
of Defense (DOD) to scientific researchers in Maine and 
throughout the Northeast. This partnership has resulted in many 
advancements, including the development of a ballistic 
protection system for tents used by our troops in Iraq and 
Afghanistan. It is typical of Dr. Westphal that he saw this 
need for our troops and set out to develop the means of 
providing them with greater force protection.
    Dr. Westphal's academic career includes a professorship of 
political science at the University of Maine, as well as 12 
years on the faculty of Oklahoma State University, as Senator 
Inhofe noted. Most recently, he established the Environmental 
Studies program at The New School in New York City until he 
again answered the call to government service as a member of 
President Obama's national security transition team.
    Dr. Westphal's previous government service is perhaps most 
relevant to this nomination and it has been exemplary. He 
served as Assistant Secretary of the Army for Civil Works, as 
the chairman indicated, from 1998 to 2001 and as Acting 
Secretary of the Army for June and July of 2001. Prior to that, 
he was a senior policy advisor for water resources at the EPA 
and Special Assistant to the Secretary of the Interior. His 
congressional experience includes serving on the senior staff 
of the House Budget Committee, as special assistant to Senator 
Thad Cochran, and as executive director of the Congressional 
Sunbelt Caucus.
    Dr. Westphal has received numerous awards during his 
academic and public career. These include the Decoration for 
Distinguished Civilian Service, the highest civilian award 
given by the Department of the Army.
    The skills and experience Dr. Westphal brings to this 
position are matched only by his energy and commitment. Mr. 
Chairman, colleagues on the committee, it is indeed an honor to 
endorse the nomination of Dr. Joseph Westphal to be Under 
Secretary of the Army. Thank you, Mr. Chairman.
    I would also ask to insert the statement of my colleague 
from Maine into the record at this point. Thank you.
    [The prepared statement of Senator Snowe follows:]
             Prepared Statement by Senator Olympia J. Snowe
    Chairman Levin, Senator McCain, and distinguished members of the 
Senate Committee on Armed Services, it is my distinct privilege to 
express my strongest support for the President's nominee for Under 
Secretary of the Army at the Department of Defense--an outstanding 
fellow Mainer, Dr. Joseph Westphal.
    I would also like to welcome and acknowledge Dr. Westphal's wife of 
41 years, Linda. I'm sure you, along with your son James, and daughters 
Amy, Heather, and Lindsay, are all extremely proud of Dr. Westphal's 
accomplishments and I understand how much this must mean to Dr. 
Westphal as well.
    Mr. Chairman, the operational tempo of the U.S. Army remains high 
as the wars in Iraq and Afghanistan continue. As this committee 
understands, over the next several months, nearly 145,000 soldiers will 
be deployed to those 2 countries, as the number of troops in 
Afghanistan rapidly increases to approximately 60,000 and troop levels 
decline in Iraq as we begin a safe and secure redeployment from that 
country. The State of Maine alone is certainly contributing mightily to 
these operations, deploying as many as 40 percent of our National Guard 
soldiers to the region--and for the lion's share of our units these are 
multiple deployments--and some of our brave men and women in uniform 
incredibly are preparing for their fourth tour of duty.
    While the total number of soldiers deployed will ultimately begin 
to decrease as the pace of our soldiers returning from Iraq increases, 
there is no question that 7 years of war have had an impact on the 
readiness of our Army. Army Chief of Staff General George Casey, just 2 
months ago explained to this committee that the Army remains out of 
balance, that we have been consuming the readiness of the Army faster 
than it can be sustained, and that our soldiers, their families, and 
supporting communities are stressed due to lengthy and repeated 
redeployments. Dwell time in the Army, a key metric for restoring and 
building readiness, for example, remains well below the 1-year-
deployed, 2-years-at-homestation that is the Army's goal. Clearly, 
there is pivotal work to be done.
    The nomination of Dr. Westphal will provide an individual with 
strong knowledge of the Army who will bring a fresh set of thinking to 
the leadership guiding the 1.3 million members of the Army team, 
including the patriots of the regular Army, Army Reserve, Army National 
Guard, and the civilian workforce, stationed in 80 countries through 
this crucial rebalancing period.
    I first met Dr. Westphal when he worked for Senator Thad Cochran 
and later during my tenure on this committee when he was Assistant 
Secretary of the Army for Civil Works from 1998 to 2001 and Acting 
Secretary of the Army in 2001. It was during this period that I became 
most familiar with his exemplary work ethic, tremendous intellect and 
impeccable character. From his prior service on the Army team, he is 
fully aware of the complexities and nuances of leadership in the Army, 
and will be a ``full up round'' from day one to lead the Army during 
this extraordinary time.
    In the intervening years since his service with the Defense 
Department, Dr. Westphal was a member of the faculty at the University 
of Maine, and, from 2002 to 2006, served as its esteemed chancellor. I 
was pleased when he was asked to serve in this highly challenging 
position as Dr. Westphal's strong academic background and his years of 
service in the Federal Government provided him a unique set of 
experiences that would enable him to lead a large university system.
    While with the University of Maine, Dr. Westphal immediately began 
a significant effort to redesign the business processes system-wide and 
to modernize what had become a decentralized and inefficient 
organization. That necessary change was implemented and is now 
operating smoothly. With his Army roots, he also was focused on 
enhancing the quality of life for members of the Army team who reside 
in Maine. Clearly, he is a man who looks beyond the moment, who thinks 
about tomorrow and what is best for those he represents.
    Mr. Chairman and members of the committee, Dr. Westphal is an 
individual of tremendous energy, enthusiasm for service to our country, 
and dedication to our Nation and its finest principles. Dr. Westphal is 
an individual of the highest caliber, and I have no doubt that we are 
entrusting an extraordinary individual to a position of enormous 
responsibility, second only to the Army Secretary. I am confident that 
the new Army Secretary, the Honorable John McHugh of New York, also an 
individual of vision and talent whom I had the pleasure of serving with 
in the House of Representatives in the 103rd Congress, will rely on the 
thoughtful, reasoned counsel of Dr. Westphal to ensure that America's 
Army remains the best trained and best equipped in history.
    I am pleased Dr. Westphal has without hesitation accepted this new 
call to service with the Army at this critical moment in the Army's 
history. I am confident that he will bring the same level of integrity, 
hard work, and openness to this important position in the Department of 
the Army that he brought to every organization with which he has 
served. I cannot express enough my gratitude to Dr. Westphal, his wife 
Linda, and their family, for their sacrifice and service to our great 
country.
    I commend this committee for providing Dr. Westphal the opportunity 
to demonstrate that he will work tirelessly on behalf of the men and 
women of the Army team to ensure they have the training, the equipment, 
and all of the resources required for success in current operations--as 
well as to defend this nation as these patriots have been ready to do 
since first organized under General George Washington on June 14, 
1775--some 234 years ago.
    There is no question, Dr. Westphal will also work with equal 
dedication and vitality on behalf of the families and communities that 
constitute the Army family, for they too are fundamental to the health, 
readiness, and future well-being of the Army. I urge the members of 
this committee to report his nomination favorably for swift 
consideration by the full Senate. Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much, Senator Collins. The 
only important note that you missed was that he also is a 
Detroit Red Wings fan, and that means his nomination will be 
expedited, I can assure you. [Laughter.]
    Senator Hutchison.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I am here to 
introduce someone that I know and think so highly of, Juan 
Garcia, to be the Assistant Secretary of the Navy for Manpower 
and Reserve Affairs.
    Before I talk about Mr. Garcia, I did want to add my 
congratulations and also urge the support for my friend, John 
McHugh. I serve on the West Point Board of Visitors with 
Congressman McHugh and he has been so helpful and terrific on 
that board. I know he will make a great Secretary of the Army.
    Juan Garcia III. You have given most of his bio, but I met 
him when he was in the Texas State legislature and did a 
wonderful job there. I wanted to also add for the record that 
he is a graduate of the University of California, Los Angeles, 
Harvard Law School, and Harvard's Kennedy School of Government. 
He will introduce his family I know, but his wife Denise is 
also a fellow Harvard Law School classmate.
    I think that he has such a great qualification for this job 
because of his clear love for the Navy, being a second 
generation to serve in the Navy in his family, and his brother, 
who is here, is an Active Duty marine. I just want to say that 
he has served, as you pointed out, for 12 years. He was in 
Patrol Squadron 47 out of Naval Air Station Barber's Point, HI, 
completed deployments in the Persian Gulf and the Western 
Pacific, U.S. Naval Forces Europe in London, England, and was 
part of Operation Allied Force during hostilities in Kosovo. So 
he really has the wide range of experience.
    He also served as a White House fellow from 1999 to 2000, 
just a great honor and experience for him.
    He left Active Duty in 2004 but continues to be in the Navy 
Reserve and is currently the commanding officer of Reserve 
Training Squadron 28 at Naval Air Station Corpus Christi.
    I know him. I know he is going to do a great job for our 
country, and I congratulate him on President Obama's selection 
and I urge his confirmation by this committee and by the 
Senate.
    Chairman Levin. Thank you very much, Senator Hutchison.
    Senator Cornyn.

 STATEMENT OF HON. JOHN CORNYN, U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    I join Senator Hutchison in introducing Juan Garcia to my 
Senate colleagues. As has been pointed out, he will serve in a 
key position at the Pentagon. The Assistant Secretary of Navy 
for Manpower and Reserve Affairs is an advocate for our sailors 
and marines deployed all over the globe, our citizen sailors in 
the Navy Reserve and all of their family members. These brave 
men and women have met every challenge that has been given to 
them. They are supporting two wars in Afghanistan and Iraq and 
they are in a position to respond to natural disasters and 
security crises all around the world. They are fulfilling their 
mission for which the U.S. Navy and the U.S. Marine Corps were 
founded, to protect all of us every day in every way. These 
heroes and their families help keep our country free and they 
deserve our full support. As Assistant Secretary, Juan Garcia 
will be responsible for ensuring that they receive that 
support.
    I would note that Mr. Garcia hails from Corpus Christi, TX, 
where he still, although in the Reserves, apparently serves as 
a flight trainer at Corpus Christi Naval Air Station. I was 
delighted to meet all of his family, but particularly his 
father who is from Robstown, TX, where my mother was from, and 
when my dad returned from World War II, having served as a B-17 
pilot and was shot down and served 4 months in a prisoner-of-
war (POW) camp, he came back to Corpus Christi Naval Air 
Station for flight training, met my mother, and they married. I 
guess, as they say, the rest is history.
    So I understand where Mr. Garcia is from, his outstanding 
record. He understands the life of a sailor and a citizen 
sailor. He flew more than 30 armed missions in the Persian 
Gulf. He supported Operation Allied Force in Kosovo, and today, 
as I noted, he is a member of the Navy Reserve.
    I might also point out that he is a lawyer, but I trust the 
committee will not hold that against him.
    Chairman Levin. You were doing well until that point, I got 
to tell you. [Laughter.]
    Senator Cornyn. It is my pleasure to present to you Juan M. 
Garcia III of Corpus Christi, TX, and I heartily endorse his 
nomination and hope you will expeditiously approve his 
nomination in the committee and on the floor.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Cornyn, thank you so much. I know 
how grateful the nominee is and his family for your words. That 
is a great story about your dad. Thanks for sharing that with 
us too.
    All right. Let us call now on our nominees to come forward. 
Your statements will be made part of the record in their 
entirety. Representative McHugh, I think we will start with you 
for your opening statement.

 STATEMENT OF HON. JOHN M. McHUGH, NOMINEE TO BE SECRETARY OF 
                            THE ARMY

    Mr. McHugh. The Senate system is far more complex than the 
House system. Forgive me. I was not sure I was pushing the 
right button.
    Chairman Levin. In more ways than one, I can assure you. 
[Laughter.]
    Mr. McHugh. Mr. Chairman, Senator McCain, distinguished 
members of the Senate Armed Services Committee, first of all, 
most importantly, I want to note how excited, how humbled, and 
frankly, how honored I am to be here before you this morning. 
This committee has a weighty constitutional responsibility in 
consideration of these nominations, and having been in this 
Congress for some years now, I fully recognize the truly dozens 
of great Americans who have sat before you in the years since 
the creation of the positions of secretaries of the military 
departments. Frankly, I am in awe that I may even deserve a 
moment of your time and consideration.
    But as well, for all those that have passed before me, I 
would respectfully note there are few who have been in this 
moment in time who have held a greater and higher degree of 
respect and admiration and affection for this great committee. 
As Senator Schumer noted, for all of my 16 and a half years in 
the House of Representatives I have been privileged to serve on 
that body's Armed Services Committee, and I know from personal 
experience the tremendous concern and effort each of you puts 
forth each and every day in support of the brave men and women 
of our military who, along with their families--and that is 
important--sacrifice so much to protect our freedoms and our 
liberties wherever and whenever that challenge might arise. I 
have been fortunate to work in your shadow in a similar cause.
    I, of course, want to thank President Obama for the high 
honor and opportunity he has afforded me through this 
nomination, and whatever judgment this committee in its wisdom 
may render, his faith and trust move me to my core.
    A special thanks to my Senator, my colleague, and I think 
it is fair to say my friend for being here with me. Senator 
Schumer, New York's senior Senator, has been a leader in so 
many efforts for so many years on behalf of the public good, 
and I have been honored to know and work with him for some 2 
decades. I deeply appreciate his introduction, his presence, 
and his gracious and kind words about my abilities.
    I would also like to acknowledge, of course, the other 
presidential nominees on this panel with me this morning: Dr. 
Joe Westphal, nominated for Under Secretary of the Army, and 
Juan Garcia, as Assistant Secretary of the Navy for Manpower 
and Reserve Affairs. I congratulate them both for their 
selection and wish them well.
    I would be remiss if I did not give special thanks to my 
family who, like good families everywhere, have lent me love, 
support, understanding, and in my case, not infrequently, some 
forgiveness in my 60-plus years of this world. The memory of my 
dad, departed from us for over 19 years, still inspires us and 
makes us smile. My brother, my best friend, Pat, his lovely 
bride Marti, their son and daughter, P.J. and Michaela, my 
nephew and my niece, and most of all, my mom who I have noted 
on previous occasions, after all these years, still finds ways 
each and every day to carry me forward. They are with me always 
and I know they are with me here today as well.
    But for all the excitement of this moment, I want to assure 
this committee I appear here before you today with few 
delusions as to the difficulties that lie ahead. I believe I 
have a clear understanding of the serious and numerous 
challenges that face America's Army. As you all know so well, 
it is a force fatigued by some 8 years of uninterrupted combat 
now on two very dangerous fronts. They are strained by the 
frequency of constant deployments and stressed by the pressures 
levied against their families. Too often, far too often, they 
return home only to be disappointed by a network of support 
systems that, despite high intentions and constant effort, 
continue to fall short of the level of support they so richly 
deserve and each and every one of us so deeply desire.
    There are no easy answers to these challenges, but answer 
we must. I promise you, if confirmed, my first priority will 
be, along with this great committee, Congress, the President of 
the United States, and of course, the Secretary of Defense, to 
engage in a constant search for the discovery and effective 
implementation of better ways.
    If I may, just a few other challenges.
    Balancing. The recognition that resources, ample in recent 
years through wartime supplementals, are likely to turn 
downward.
    The requirement to make the hard and necessary choices to 
strike an equilibrium between prevailing in current conflicts 
and preparing for future challenges.
    Secretary Gates put it very well. He said, ``We cannot 
afford to do everything and buy everything, but at the same 
time, we cannot afford defeat.'' That is a tough challenge, 
tough realities, but both can be met and overcome. It will take 
a constant formulation of new thinking and new directions.
    Success is also going to require a reinvention and 
reinvigoration of all of our Government resources. Expertise in 
our civilian agencies must be brought effectively to bear both 
to avoid and, where possible, hasten the end of conflict. 
``Soft power'' in this town right now is a fashionable phrase. 
But its fashion should not diminish the urgency of its 
application and the requirement that the Army, and indeed in my 
opinion, all the Services do their part to facilitate the 
effective implementation of these nonkinetic tools.
    In the end--and I know everyone on this committee agrees--
it all comes back to people: the men and women who step forward 
and don the uniform of our Nation, the spouses, the children of 
those brave warriors who sacrifice so much, as well. Like all 
of you, I have visited our wounded warriors at home and abroad, 
and in each visit, I have been so struck how these heroes, 
facing pain and loss and uncertainty, ask one question. What 
else can I do to serve? We can ask no less of ourselves. How 
can we succeed in repaying even a partial measure of the 
devotion they render to all of us each and every day?
    If in your wisdom I am confirmed, that will be the key 
motivation I awake to each and every day.
    Thank you, Mr. Chairman, Senator McCain. I look forward to 
your questions.
    Chairman Levin. Thank you, Representative McHugh.
    Dr. Westphal?

   STATEMENT OF DR. JOSEPH W. WESTPHAL, NOMINEE TO BE UNDER 
                     SECRETARY OF THE ARMY

    Dr. Westphal. Thank you, Mr. Chairman, Senator McCain, 
distinguished members of the Senate Armed Services Committee. 
It is a great honor for me as well to be here and to be 
nominated by President Obama to be the Under Secretary of the 
Army.
    I am also very grateful for the confidence and support of 
Secretary Gates.
    As Senator Collins and the chairman noted in my resume, I 
spent a good deal of my life in academia, and in that part of 
my life, I spent almost all of it studying Congress. It is 
because of that that I am very humbled to come once again 
before this committee seeking your confirmation. I thank the 
chairman and Senator McCain for their very kind introductions.
    It is not only an honor and a privilege to have a 
professional relationship with my two Senators from Maine but 
also to call them my friends. I am very grateful for the 
support they have given me and the kind and wonderful 
introduction that Senator Collins gave today. Her tireless 
efforts on behalf of the citizens of Maine and all Americans 
have made myself and my family and all of us who are part of 
that great State very proud.
    I want to thank Senator Collins for her most gracious 
introduction, but more importantly, for her steadfast support 
of the men and women in uniform. She has just been a great 
advocate for ensuring that the needs of our troops are 
considered and met.
    In knowing her personally, I got to meet her family, in 
particular her dad and her mom. Her mom Pat was a former 
chairman of the board of trustees of the University of Maine, 
not while I was there, but prior to my coming on board, and she 
certainly knew the university very well. Her dad was a World 
War II veteran who fought in the Battle of the Bulge, and to my 
knowledge, he was decorated with the Purple Heart and the 
Bronze Star. I got to meet her dad and spend quite a bit of 
time with him, and I am very honored to have known him. I am 
sure he is extremely proud of his daughter today.
    With me today is my wife, Linda Westphal. We have been 
married 41 years. She and I have raised a family, raised four 
children, James, Heather, Amy, and Lindsay. Unfortunately, they 
could not be here today because of family commitments and work 
responsibilities. But three of our four kids are married and 
have blessed us with six grandchildren. My family knows how 
demanding these jobs can be on the individual and the family, 
and thus, their support, patience, and love have only helped to 
strengthen our family bond and to give me the opportunity to 
serve my country through public service.
    I also wish to cite the contribution to our Nation of my 
wife's dad, Wilbur McMaster, now deceased. He was a soldier who 
served in the Pacific during World War II. For me, he always 
truly represented that group of men and women that have come to 
be known as the ``Greatest Generation.'' Senator Collins' dad 
would be one of those individuals.
    I hope that my mother-in-law, Mary, is watching this 
hearing and her love and support are very important to me as 
well.
    I am honored to be here today also alongside a great public 
servant, Congressman John McHugh, who is deeply committed to 
the task ahead, should you choose to confirm him. Congressman 
McHugh is a good friend, and if we are confirmed, I look 
forward to working with him and supporting his efforts in 
leading the Army towards a more sustainable future.
    If confirmed, I pledge to work closely with you, your 
staffs, to truly partner with the other Services, with the 
Office of the Secretary of Defense in what I believe ought to 
be a fervent and urgent effort to sustain the best Army in the 
world and ensure our national security needs are met.
    I believe one of the most important responsibilities I will 
have, if confirmed, will be to support the Secretary of the 
Army in meeting the needs of our soldiers and their families. 
Congressman McHugh eloquently expressed that important 
priority. I pledge to the President, to the Secretary of 
Defense, to this committee, and to Congress that I will work 
hard and to the best of my ability to meet that commitment.
    I thank all of you for your consideration of my nomination. 
Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Dr. Westphal.
    Mr. Garcia?

   STATEMENT OF JUAN M. GARCIA III, NOMINEE TO BE ASSISTANT 
     SECRETARY OF THE NAVY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Garcia. Thank you, Chairman Levin, Senator McCain, and 
members of the committee. I am grateful to be here before you. 
I am honored that Senators Hutchison and Cornyn made time in 
their full schedules to be here and also honored to share a 
panel with my distinguished fellow nominees, Congressman McHugh 
and Dr. Westphal.
    Thank you for the opportunity to introduce my family. My 
incredible wife Denise packed up our minivan and filled it with 
kids and drove up from Corpus Christi this week. Our four kids 
are here, the twin boys, Jack and Luke; our little girl, 
Calista Rose; and our youngest Lex.
    My parents, retired Navy Captain Juan and Pat Garcia, are 
here, and my sister and brother-in-law, Marine Lieutenant 
Colonel Rob and Gabriela Scott and their beautiful kids are 
here. They are stationed here in town at the Pentagon and 
graciously have been incredibly supportive of this effort, and 
in fact, the entire family is crashed out at their full house 
right now. Thank you all.
    On behalf of myself and my family, I want to thank the 
President for this moment, an impossible-to-imagine opportunity 
to be considered by the U.S. Senate for a post helping to shape 
and manage the world's finest sea service, the U.S. Navy and 
Marine Corps team. It is a moment that could be traced back to 
my first conscious memory as a small boy, 36 years ago, 
attending the homecoming ceremony for the POWs at Naval Air 
Station Lemoore in 1973. It winds through unforgettable moments 
for an oldest son growing up in base housing with mom squeezing 
my hand as that official Navy sedan slowly pulled into our cul-
de-sac, praying under her breath that it did not stop at our 
house, knowing that it brought bad news.
    The route here ran though a tiger cruise aboard the 
aircraft carrier USS Constellation a few years later when I 
joined my naval aviator father for a week at sea and knew then 
that I wanted to be like him and his shipmates. What I could 
not have known then was that I would get to return the favor 25 
years later, hosting him aboard the same carrier.
    I traced it through the gentle tutelage of my Marine Corps 
drill instructor, Staff Sergeant Mike Sinot, who will never 
know the full impact he had on me. This moment could not have 
happened without a dozen chief petty officers along the way who 
did their job and taught a junior officer what it means to take 
care of the troops.
    Mr. Chairman, today's Navy and Marine Corps face a threat 
spectrum that spans from downing a spent satellite 60 miles 
above the surface to the centuries' old scourge of piracy. 
American families entrust their sons and daughters to this 
organization, believing that the Nation will provide the finest 
training, best equipment, fair compensation, care for their 
wounds, both visible and nonvisible, and a quality of life for 
their dependents in exchange for their sacrifice. I can think 
of no more humbling an honor than to assist in meeting that 
commitment.
    I thank you for your consideration and look forward to your 
questions.
    Chairman Levin. Thank you very much, Mr. Garcia, and thank 
you all for sharing a bit of your family history with us. It 
helps to humanize and personalize these hearings, and it is 
very important for us and those who are listening that you do 
that.
    There are standard questions that we ask of all nominees, 
and I am going to ask you the same questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. McHugh. Yes.
    Dr. Westphal. Yes.
    Mr. Garcia. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. McHugh. No.
    Dr. Westphal. No.
    Mr. Garcia. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. McHugh. Yes.
    Dr. Westphal. Yes.
    Mr. Garcia. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. McHugh. Yes.
    Dr. Westphal. Yes.
    Mr. Garcia. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefing?
    Mr. McHugh. Yes.
    Dr. Westphal. Yes.
    Mr. Garcia. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. McHugh. Yes.
    Dr. Westphal. Yes.
    Mr. Garcia. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. McHugh. Yes.
    Dr. Westphal. Yes.
    Mr. Garcia. Yes.
    Chairman Levin. We have a number of Senators here this 
morning, so let us start with a 7-minute round of questions.
    Congressman McHugh, let me start with you on the question 
of Army modernization. We have recently passed an important 
bill in terms of trying to reform the way we acquire items for 
the military. The bill is a major reform initiated here but 
fully supported by the House, signed by the President. 
Implementation of that is, however, critically important. We 
can write laws with good intent and with strong words, but when 
it comes to implementation, that is critical.
    Give us your thoughts about implementation of that 
acquisition reform bill.
    Mr. McHugh. First of all, Senator, as I said in the meeting 
that Senator McCain, you, Senator Levin, Congressman Ike 
Skelton, and I attended, I thank the two of you and this 
committee, this body, for taking the leadership in that effort. 
You called the House to arms, and I think it made a huge 
difference.
    But you are absolutely right. The bill is an important 
step, but the implementation is absolutely essential. If we do 
not follow through with the fullest extent of the force of the 
law, then all of us have wasted our time.
    I think the biggest challenge, with respect to that 
particular piece of legislation, is the designation of some 
20,000 new contract officers. We probably--not probably--we 
went far to the extreme in cutting down the number of 
professionals within the military who could oversee those 
activities. This bill recognizes it. But I think as well it 
puts a rationalization and divorces those who have a stake in 
the system going forward from those who have an absolute 
responsibility to make a decision as to whether it should pass 
to the next milestone and the next step.
    I can pledge to you, having had a little bit to do with 
that development on the House side, that this is the highest 
priority for me.
    I think the challenge that also lies ahead, Senators, that 
this represents only about 20 percent of all the acquisition 
programs before the U.S. military. The major weapons 
acquisitions are certainly a huge part of the problem. A lot of 
money. But we have 80 percent still lying out there, and in my 
discussions with Chairman Skelton and others who were involved 
in this is that Congress fully intends to take up that other 80 
percent. Whether I am confirmed or not, I would certainly, as 
an American citizen, encourage you to do that, and if I am 
confirmed, I promise to you as Army Secretary that I stand 
ready to work with you and make sure that we try to close that 
gap as well. Too much money out there, too many wasted dollars, 
too many dollars potentially to be saved that could be spent 
far better on those men and women who have so many needs that 
still exist.
    Chairman Levin. Congressman, the Secretary recently 
announced that there is going to be a temporary growth in Army 
end strength of up to 22,000 soldiers. Do you have an 
understanding of the pace and plan to implement that increase 
in end strength?
    Mr. McHugh. I really do not, Senator.
    Chairman Levin. That is fine. If you do not, that is fair 
enough. We do not expect you to know a lot of the answers to 
some of these questions because you have not had an opportunity 
to be there to do that.
    One of the issues that we face is the problem of mental 
health for our troops, particularly for our soldiers in the 
theater. I am wondering, based on the findings of the Army's 
Mental Health Advisory Team studies in the Iraqi theater, 
whether or not you are able to share with us now any plans to 
increase mental health resources available to our troops not 
just on their return, but also in theater?
    Mr. McHugh. Senator, there has been a major effort to try 
to make a more robust effort on the troops who were forward 
deployed. I think the Army is in the right direction on that, 
but clearly, if you look at the feedback studies, we have a 
long way to go. If I may, this was not exactly to your 
question, but if you look at the suicide rates within the Army 
in recent months, the latest figure, about 87 for this year, we 
have an enormous challenge whether it is amongst the deployed 
or those who are back home.
    So that is something that any Army Secretary would have a 
solemn responsibility to try to fine tune, and if we have gaps 
in the training capabilities, a lack of understanding amongst 
the officer corps who are entrusted with that forward-deployed 
sensitivity, then we have to do a better job. It is 
unacceptable to have brave men and women who commit so much on 
the battlefield come home and, at the end of the day, take 
their own lives.
    Chairman Levin. The growth in the number of suicides has 
been a real significant concern of this committee and all of 
its members. It is important that you get right into that issue 
as soon as you are confirmed.
    Relative to the role of women in the military, if confirmed 
as Secretary of the Army, will you support assignment policies 
that will permit women to continue to serve in all positions 
and specialties in which they currently serve, number one, but 
also will you review positions that are currently closed to 
female soldiers to determine whether female soldiers should be 
permitted to serve in additional positions?
    Mr. McHugh. Thank you for that question, Senator, because 
there has been a lot of confusion and misinformation on that 
particular issue. As I think the legislative record shows, I 
strongly, strongly support the existing position and policy, 
and that policy has been in place since 1994, put into place by 
Secretary Les Aspen. I have learned through my 10 visits to 
Iraq, my 4 to Afghanistan, and to other combat theaters that 
the basic fact is women in uniform today are not just 
invaluable, they are irreplaceable. I have absolutely no 
evidence, nor have I ever had any evidence before me that would 
suggest that the policy, as in effect since 1994, is not 
working.
    If someone shows me something to the contrary, I would 
certainly share that with the Secretary of Defense, the 
President, and of course, the oversight committees in the House 
and the Senate, but from everything I know at this moment this 
is a policy particularly on the irregular warfare battlefield 
that is working.
    Chairman Levin. In terms of additional possibilities, will 
you take a look at that as well?
    Mr. McHugh. The current policy, as I understand it, as 
issued under Secretary Aspen, is to continuously search for 
Military Occupational Specialties (MOS) that can be opened, and 
I support that and would certainly continue it.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Again, 
congratulations to the nominees. I am hopeful and I know the 
chairman will do everything to perhaps get these nominations 
confirmed before the August recess. Is that correct?
    Chairman Levin. That is our goal. Absolutely.
    Senator McCain. That is our goal, and I thank you all for 
serving.
    Congressman McHugh, I just want to follow up a second on 
the suicide issue. It is my understanding that 30 percent of 
these suicides have occurred with servicemembers who have never 
been deployed. Then it is hard to place the responsibility 
simply on long deployments or frequent deployments.
    What kind of analysis are we conducting to try to figure 
out what it is? I am sure there are multiple causes, but also 
does it go back to recruiting?
    Mr. McHugh. That is an important question, Senator. When 
you and I had a chance to talk about this, I quoted the 30 
percent. Actually I was a little bit conservative. For the 
Army, it is 32.8 percent. Nearly a third of these suicides have 
never deployed.
    Now, that should help us to understand that the normal 
stressors that we focus upon, including operations and 
personnel tempo (PERSTEMPO) were important, but as I mentioned 
to you, sir, I do not want to lose the fact that for a third of 
these brave men and women, something else occurred. I think we 
have to take a very calculated look at the programs that we are 
putting into place. Do they, in fact, respond to that reality? 
I have no reason to think they do or they do not, but it is a 
search that has to be undertaken.
    The other question, as you noted, Senator, what else is 
happening? Is it a diminution of the standards that somehow we 
are recruiting people who are perhaps possessing a proclivity 
for that? I just do not know.
    I think the Army took a positive step. They have engaged in 
a longitudinal study with the Institute of Mental Health to try 
to understand that. That is a 5-year study. We cannot wait 5 
years. I do not pretend to have the answers right now. There 
are 20-some programs the Army has put into place to combat this 
issue. I think we have to take a cold, hard look and monitor 
the progress of those programs very carefully and be as adept 
and flexible as we expect these brave men and women to be on 
the battlefield.
    Senator McCain. I thank you for your commitment, and 
obviously all members of the committee and all Americans are 
deeply concerned about what seems to be a continued increase in 
these tragedies.
    As we discussed in my office, Congressman, I understand 
that PMA's political action committee (PAC), employees, and 
clients contributed over $160,000, which placed you at number 
16 on the list of all PMA beneficiaries in Congress.
    Did you ever seek an earmark for the PMA lobbying group or 
a PMA client corporation in exchange for any political 
contribution or anything else of value that was given to you 
directly or indirectly?
    Mr. McHugh. Absolutely not.
    Senator McCain. As of today, have you returned any of the 
political contributions you received from PMA, its PAC, or its 
employees or clients?
    Mr. McHugh. I did not, but what I did do, Senator, was ask 
my accountant to go through it. There were questions about 
phantom donors, and I want to make sure we were not in receipt 
of any of those funds, and I gave the standing order. 
Obviously, I will never use my campaign funds for personal 
gain. Again, that should there ever be a question as to the 
veracity of those contributions, they be, if not returned, I 
would rather give them, frankly, to a charity.
    Senator McCain. Thank you for that, Congressman.
    According to a report by Citizens Against Government Waste, 
since 2008, you have sought earmarks for 52 projects totaling 
$97.3 million, and you and I went through some of them before. 
Here is my question. How do you answer a Congressman or a 
staffer that calls you and says, I want you to spend money on 
this earmark or I want you to support this earmark? How do you 
reconcile that?
    Because I am absolutely convinced that earmarks--and the 
PMA Group is a classic example. There are continued stories in 
the media about the corruption that has been bred by this 
earmarking process which I think is absolutely unacceptable. I 
have fought it for many years, and I will never give up the 
fight until the day that I leave the U.S. Senate.
    So how do you answer when one of these appropriators calls 
you up and says, hey, I want an earmark for X?
    Mr. McHugh. The honest answer is I do not know because, 
quite frankly, in my 16 years I have never had a Congressman 
call and ask me to support an earmark. I am not an 
appropriator. I am an authorizer and, of course, that is an 
important part of the process, as this committee knows.
    Senator, as I mentioned to you in our previous 
conversation, I deeply admire the many causes that you have 
taken up. I mentioned as well I was one of 44 Republicans in 
the House of Representatives out of more than 218 to support 
McCain-Feingold. It did not make my leadership happy, but it 
made me feel good because I felt it was the right thing to do.
    I have tried to live up in all of my requests to the formal 
standards placed by the House. I have argued for higher 
standards, but I have tried to do the best job I could to 
provide projects that benefitted my district and equally 
benefitted the military.
    But, Senator, I understand your passion and I even admire 
it. No matter what the judgment of this committee, I can tell 
you I will never receive another earmark.
    Senator McCain. I thank you, Congressman McHugh. Let me 
just say again, one of the reasons why I raise this issue at 
this time is not in any way to diminish my respect and 
appreciation for your service. I raise it in the context of an 
attempt that I think is going on now, led by the President and 
strongly led also by the Secretary of Defense, that we stop 
some of this. I noted that the House Appropriations Committee 
just passed legislation filled with projects that, one, have no 
justification, strongly opposed by the President and the 
Secretary of Defense, and are clearly unneeded and unnecessary, 
including the presidential helicopter, and the list goes on and 
on.
    I guess my point is that I think that we are either going 
to change and give the American people the defense capabilities 
and care for the men and women in the military, which is our 
obligation, or we are going to continue, as Secretary Gates 
calls it, an unsustainable path of earmarking and unnecessary 
and wasteful spending.
    I only bring this to your attention in the context that I 
think there is going to be a big fight, and I am proud of the 
President who has threatened vetoes on several issues. I know 
that you will join this fight to give the taxpayers the best 
``bang for their buck.''
    Again, I strongly support your nomination and I appreciate 
your dedicated service in the Congress of the United States.
    Finally, Mr. Chairman, could I just ask Mr. Garcia a 
question? You come from a military family. You have served in 
the military. So you have a good understanding of what these 
multi-deployments and absences from home and family is like. 
Could you just share a little bit of that with the committee, 
please?
    Mr. Garcia. Senator, thank you for your question. I know 
you also have been on both sides of a deployment, both as a 
dependant and as the deployer.
    Like folks are doing all over the country right now, my 
last deployment aboard the USS Constellation, I left my wife 
with three kids under 3 years old. That is a story that is 
being echoed across our country right now. The Army 
particularly I think is bearing an exceptionally heavy load 
with their extended deployments.
    Ensuring that we have the proper programs and efforts in 
place to take care of those dependents when you are gone, that 
housing is adequate, that when they are PCS'd (permanent change 
of station) when they move, children can transfer appropriately 
between schools, that credits get transferred, all those little 
things that you do not have time to think about when you are in 
a tent, on a carrier, or in a submarine, I think would fall 
under the purview of the Assistant Secretary for Manpower and 
Reserve Affairs. If confirmed, I look forward to ensuring we 
have the optimum programs in place.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I want to welcome the nominees and just say I think the 
President has chosen very wisely. I had the privilege to work 
with Congressman McHugh on many issues and Dr. Westphal as a 
former official in the Department of the Army, who comes back 
with great insights and great experience. Mr. Garcia, thank you 
for your service and I look forward to your service in the 
Department of the Navy.
    Congressman McHugh, one of the traditions of the Army is a 
respect for the individual's demonstration of their faith, 
which is very important. Essentially that is why we have a 
chaplain corps. But part of that is ensuring that there is not 
an attitude preferential to one denomination versus another, 
preferential to one set of beliefs to another, consistent with 
the Constitution.
    I wonder if you have any comments on that.
    Mr. McHugh. Thank you, Senator, and thank you for your kind 
comments.
    My understanding is every chaplain who goes into service 
has a prime directive, and that is in those instances where it 
is far likely that there are multi-denominational attendees, 
the chaplain must be sensitive to the nature of that 
assemblage, and therefore, do everything necessary to keep away 
from proselytizing but give a general blessing, whether that is 
a deployment ceremony or some other variant. It does allow 
them, of course, in their regular duties on a Sunday, if it is 
a Catholic chaplain, providing mass or the Shabbat services in 
temple for Jews or in the mosque for Muslims. But when you have 
a general assemblage, they must be sensitive and not make 
comments that would be offensive to others in that assemblage.
    I cannot imagine our ever changing that. Certainly in my 
opinion any chaplain who does not adhere to that needs to be 
admonished and instructed as to their primary responsibility.
    Senator Reed. I agree with you. I have found also that the 
chaplains play a very critical role in informally counseling 
soldiers not in any sort of denominational way but as a source 
of information for the commanders, as a source of support for 
troops, and it is a very important role.
    Mr. McHugh. Yes, sir.
    Senator Reed. We have all talked about this, but it is, as 
Mr. Garcia pointed out, particularly acute for the Army. The 
operational tempo (OPTEMPO) has been exhausting over the last 
several years. Can you comment on the effect this has had on 
retention of mid-grade officers, captains, majors, and the 
noncommissioned officers (NCOs), which from my perspective are 
probably the real heart and soul of the force?
    Mr. McHugh. I have two answers. The answer I will give to 
you first is the answer I had as a 16-year member of the HASC 
and 12 years on the Personnel Subcommittee. It just seems to me 
at a minimum intuitively that particularly in an economy that 
values the kinds of intellect and experience that those mid-
grade officers have, that the operations and PERSTEMPO has a 
tremendous effect on encouraging them to leave the Service. 
Certainly the numbers would suggest there is something afoot. 
We are about 3,000 short in those middle cadres. It is such an 
acute problem that the Army does not estimate it will be able 
to begin to catch up until about 2014 or 2015.
    The second answer is what I understand, what I was told as 
a member of the House Personnel Subcommittee, the Army believes 
that the retention is not the issue in those gaps, that the 
problem is the growth of the Army has left that gap.
    There is probably accuracy and veracity on both sides, and 
I have not been in a position to be briefed, but the bottom 
line remains the same. We have a huge challenge in that cadre 
of officers that we have to make sure we can make up. Senator, 
these are the people who instill the values, who instill the 
training, who instill all those things that we view as so 
important in the formulation of the military, and we have to 
work hard to close that 3,000-officer shortfall.
    Senator Reed. Thank you, Congressman.
    Dr. Westphal, what do you presume is going to be one of 
your key focal points as the Under Secretary of the Army?
    Dr. Westphal. Thank you, Senator.
    Obviously, the Under Secretary works to implement or works 
at the direction of the Secretary of the Army, and with the new 
responsibilities, as the Chief Management Officer (CMO), which 
this committee rendered back in 2008 in the defense 
authorization bill, there is an additional broad responsibility 
to manage all the business operations of the Department.
    Within that framework, I think what is very important--and 
the chairman's comments earlier about the acquisition issue 
touched on this--a key area of focus would have to be business 
transformation. There is the Defense Transformation Agency 
created by the law that you passed. The Army has a Business 
Transformation Office which it needs to vigorously stand up, 
and then integrate that business transformation process into 
all the elements that you have discussed here today, that 
Congressman McHugh has been talking about in a way that we can 
address those issues both from a fiscal standpoint as well as a 
planning and execution standpoint.
    Senator Reed. Thank you very much, Dr. Westphal.
    Mr. Garcia, again, thank you for your service.
    Mr. Garcia. And you for yours, Senator.
    Senator Reed. Well, thank you very much.
    You are going to be in a situation where you have to 
recruit, you have to retain also. The OPTEMPO of the Navy is 
also quite compelling. Can you comment about some of your 
thoughts about your challenge of recruitment for the Navy?
    Mr. Garcia. Sure, Senator, although I think it is a very 
different story than the challenges the Army is facing right 
now. With the Navy that has downsized some 40,000 sailors over 
the last 7 years, in some ways we have the opposite problem. 
You have arguably one of the most selective, difficult-to-
access navies that we have ever had right now. The Marine 
Corps, who even at the height of this long war, never failed to 
meet a recruiting goal, have now met and perhaps exceeded their 
end strength.
    I think it is important, though, that as the economy begins 
its up-tick that we all hope will come sooner rather than 
later, that we not let our guard down on the recruiting front. 
It takes time to build up a recruiting effort to build those 
affinity groups and those relationships. In stressed monetary 
times, I think it is important that we not cut back too far 
despite the fact that our goals for the moment seemed to have 
been met.
    Senator Reed. Thank you very much, Mr. Garcia.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Chairman, before I make my comments and ask questions, 
I would like to recognize the service and sacrifice of 
Lieutenant Colonel Ray Rivas, a wounded servicemember who 
suffered a traumatic brain injury in Iraq and who testified 
before the Senate Subcommittee on Personnel, chaired by Senator 
Nelson and on which I serve, recently about the care and 
support of wounded warriors. I mention this because staff has 
just advised me that Lieutenant Colonel Rivas died last week as 
a result of an apparent suicide in San Antonio, TX.
    Our committee recommended, and last week the Senate 
adopted, legislation to further improve care and effectiveness 
of support for our wounded warriors and their families. Mr. 
Chairman, certainly our thoughts and our prayers are with the 
family of Lieutenant Colonel Ray Rivas.
    Chairman Levin. Thank you, Senator Chambliss, for 
mentioning that.
    Senator Chambliss. Mr. Chairman, I congratulate all three 
of our nominees who are here today, particularly my longtime 
dear friend, Congressman John McHugh, with whom I had the 
privilege of serving with in the House. I was the vice chairman 
of House National Security Committee Special Oversight Panel on 
Morale, Welfare, and Recreation for 4 years while he was 
chairman, and I know firsthand, John, about your devotion and 
your care for our men and women in uniform. I could not be 
prouder and more pleased with a nomination coming from the 
President than to have you nominated as Secretary of the Army.
    As you and I have discussed over the past 24 hours, for the 
past 20 years, the States of Alabama, Georgia, and Florida have 
been involved in discussions, negotiations, and significant 
litigation related to the Apalachicola-Chattahoochee-Flint 
(ACF) and the Alabama, Coosa, and Tallapoosa (ACT) River 
Basins, which are under the jurisdiction of the Army Corps of 
Engineers. The current water control manuals for the ACF and 
the ACT river basins are based on figures that are in excess of 
50 years old.
    The recent court decision that came out just a couple of 
weeks ago really chastised the Corps for their failure to 
update those manuals over the years with the increased and 
divergence of use of those river basins.
    In 2007, Secretary Geren made a correct and courageous 
decision politically to update the water manuals, and I would 
simply like to ask you, even though I know you do not have a 
lot of background on this, but I want to make sure that you 
continue to pursue the updating of these water manuals so that 
final disposition of this disagreement can be made.
    Mr. McHugh. First of all, Senator, thank you for your kind 
comments. The House's loss was the Senate's gain when you made 
the trip across the Rotunda.
    You are right. I do not have a lot of information. I had 
the opportunity to sit down with you and Senator Isakson. 
Twenty years is a long time to be going back and forth.
    I am going to, if I may, take a pass for the moment because 
I understand there is a court decision that you shared with me 
and I have not had a chance to look at it. I am aware that 
Secretary Geren felt that the court decision, if not compelled, 
certainly encouraged greatly the redevelopment of the water 
manuals, and I know that is going forward. I need to take a 
look at that. Without having an update, it seems to be a 
reasonable thing to do, but there is just such a complexity 
there that I am concerned.
    What I do know, just as a member of the human race, is you 
have three vital interests there, three States, and what I 
would unquestionably say to you is I would make every effort to 
engage the Corps to try to provide whatever assistance, 
encouragement is necessary to bring about a resolution in a way 
that serves everyone's interests equitably. I suspect it is 
probably not going to be possible to create everybody's 
nirvana, but anytime you have a lawsuit for 20 years that has 
not been resolved, although I dropped out of law school after 
10 days, that kind of raises my antenna that we have a tough 
issue. But I want to work with you. I started out in local and 
State government, and I know the importance of that, and I sure 
know the importance of water.
    Senator Chambliss. Fair enough.
    You and I, along with Senator Isakson, discussed yesterday 
the issue of Fort Stewart and specifically the great financial 
risk that the local community assumed to a large degree at the 
Army's urging in expectation of an additional brigade coming to 
Fort Stewart. As we advised you, the community put up 
approximately $450 million in preparation for this brigade 
coming, and I am sure you can understand the enormous impact 
the announcement that the brigade is not coming has had on this 
small community in southeast Georgia. I know you can appreciate 
it because of your comments in representing communities around 
Fort Drum when a similar action was taken by the Army in 
previous years.
    I simply want to get your assurance again on the record 
that you will address this issue as soon as you are confirmed 
and take whatever measures possible to fill the gap left by an 
additional brigade combat team not coming in order to help 
alleviate the financial distress. I just found out yesterday 
that Secretary Geren will be at Fort Stewart next Monday. That 
is the type of high profile issue it is now, and I simply want 
to make sure that is going to continue.
    Mr. McHugh. Well, I am hopeful Pete Geren solves it in his 
visit on Monday. [Laughter.]
    But assuming he may come a bit short--as you noted, 
Senator, I have seen how the Army and, I suspect, other 
Services where an expected expansion is going to take place 
understandably come in and try to encourage the community to 
make commitments. In my case, fortunately, those troops arrived 
and the commitment that was made, the investments that were 
made were utilized, and I think it was a win-win situation.
    I do believe, from what I know at this point, that 
Secretary Gates probably made the right decision in holding at 
45 because of the vagaries of cross-leveling and the desire to 
have 45 robust totally filled-out brigades versus 48 that 
needed all kinds of help. But the downside of that are those 
three communities that are left holding the bag of hundreds and 
hundreds of millions of dollars.
    Senator, I cannot promise you that I can effect a positive 
outcome for you, but I can promise you I will look into this 
and press it as hard as I possibly can. This comes from my 
personal experience, and I absolutely understand the dilemma, 
as I recognize it, to be a very small, not particularly wealthy 
community is in.
    Senator Chambliss. If Secretary Geren does not solve it on 
Monday, I will be calling you Tuesday.
    Mr. Chairman, I thank you. I would simply say to our other 
two nominees congratulations on your nomination. We look 
forward to a speedy confirmation.
    Dr. Westphal, when I see you in Stillwater in September, 
please encourage your Oklahoma State Cowboys to be kind and 
gentle hosts to my Bulldogs. Thank you.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman. Aloha to the 
esteemed nominees and your family and friends who have joined 
us today.
    Gentlemen, first, I want to thank each of you for your 
service to our country. I am heartened to know that you are 
answering a call to start another chapter in your lives 
dedicated to public service.
    Mr. McHugh, I enjoyed our visit the other day, and your 
entire career has been dedicated to public service. You have an 
outstanding track record supporting our troops and their 
families during your service in the House, and should you be 
confirmed, I have no doubt that our Army will be under 
outstanding leadership.
    Dr. Westphal and Mr. Garcia, your diverse experiences and 
outstanding educational backgrounds are very impressive. If 
confirmed, you will all face many difficult issues in your new 
positions. However, with your outstanding experiences and 
qualifications, I am confident that you will be able to handle 
the challenges before you.
    Mr. McHugh, you have had the opportunity to view and shape 
the Army from the HASC for those many years, and I trust you 
have also received briefings and held discussions with the 
current Army leadership. As you prepare for this position, I 
would be interested to know what you believe would be the 
toughest challenges as Secretary of the Army.
    Mr. McHugh. It is always the one you do not know about that 
rises up and catches you, Senator. But as I look ahead, I think 
our first responsibility and therefore our most important 
challenge is what we owe the men and women in uniform and their 
families. A number of your colleagues have spoken about the 
operations and personnel tempo, the dwell times that are 1 to 
1, deploying for a year, coming back to a dwell for a year. The 
reality is much of that year is spent in retraining for the 
next deployment. So it is kind of an illusionary figure to 
begin with.
    The Army has adopted a program and a plan to get there. 
Secretary Gates' temporary wartime supplemental of 22,000 will 
help. This committee and Senator Lieberman, I think, took the 
right step. I know there is a ways to go with respect to the 
conference committee, and it is probably not my place to 
editorialize, but I wish this committee the best on that 
particular provision in the conference committee with my House 
colleagues. Those should help as well.
    But it is a fragile equation. Iraq for the moment is going 
positively--I know Secretary Gates and General Odierno talked 
about a modest acceleration of the planned drawdown. That would 
help tremendously. That extension of dwell times to a 1 to 2 
and hopefully over a period working to a 1 to 3 for the Active 
and a 1 to 4 and then ultimately a 1 to 5 dwell for the 
Reserves is critical to that.
    But that is only part of the equation. We have set up a 
good number, a very robust number of support programs for the 
families, for the men and women in uniform. We have to make 
sure that the families are not overwhelmed by that, they 
understand them, they trust them, they will access them. I am 
not sure that is true. I am not sure it is true in the suicide 
programs. I am not sure it is true in the variety of other 
personnel challenges we face.
    The other problem, number two, is the challenge of 
resetting the equipment, making sure, as we redeploy out of 
Iraq, withdraw the equipment out of there, we are getting the 
right platforms, the right support to our troops in Afghanistan 
as we begin to build up there, and at the same time, ensuring 
that we are modernizing. The Army has always been challenged in 
an affordable modernization program, and we have to do a better 
job there as well.
    Those are probably the cream that rises to the top, but you 
know there is a whole lot of important layers below that. This 
is a military and particularly an Army that is challenged on 
many fronts.
    Senator Akaka. Thank you very much for your leadership.
    Dr. Westphal, during your time with the administration's 
transition team for national security working defense matters, 
I believe that you had a chance to study our Army up closely. I 
am interested in hearing your thoughts on the things you found 
the Army to be doing well and what needs improvement.
    Dr. Westphal. Thank you, Senator.
    To begin with, I think the Army was beginning to really 
recognize many of the issues that have been raised by members 
of this committee in this hearing, not only recognize them but 
begin to address those issues. Now, they are not resolved. They 
are complicated matters that require a fully integrated Army 
team working on these issues, and during a transition, you do 
not have that full Army team. You have people leaving the 
administration. You have people coming in and slow movement. 
You have essentially almost a lame duck kind of organization 
transitioning through there.
    Then, of course, Congress was and this committee was 
working and giving signals to the Army that things needed to be 
corrected. Whether it is on the acquisition side or the 
manpower side, there were things that needed to be addressed. 
You did that in legislation soon after the President took 
office.
    I think the Army is cognizant of the issues that you have 
raised. I think that what is needed is a consistent and 
collaborative effort to address it between a secretariat that 
is strong and enabling to both the civilian workforce and to 
the Army staff. I think we have an excellent Army staff, 
experienced Army staff. I think what we need to do is also 
strengthen the secretariat and bring about a team that can then 
take these business decisions that have to be made and 
integrate them to connect with the operational side.
    The other thing that we looked in the transition, of 
course, and were trying to alert the President-elect to was the 
fact that you have a changing environment out there, that you 
have a very unstable political environment around the world, 
and that the Department is beginning to do the Quadrennial 
Defense Review (QDR) or was in the process of doing the QDR at 
the time. There are a number of other uncertainties out there, 
and what kind of planning and fiscal constraints are there 
going to be as we face these challenges into the future. I 
think we are facing them now, and I think the Army is moving 
ahead to try to address them.
    They are, of course, waiting now for a team to come in and 
help push it along further, which is what many of you have 
insinuated in your questions is what you are looking for.
    I think the Army is addressing these issues, are cognizant 
of them, but there is a lot of work to be done on all of these 
fronts.
    Senator Akaka. Thank you very much.
    Mr. Chairman, I know my time has expired, but I had a 
question that I will submit to Mr. Garcia. It has to do with 
diversification of leadership in the Navy, but I will submit 
that as a question for the record. I mentioned diversification 
because I know you and your family did spend some time in 
Hawaii and wanted to hear about your feelings about that.
    Mr. Garcia. I look forward to it, Senator.
    Senator Akaka. Thank you.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. McHugh, let me say how delighted I am with your 
appointment. We have had the opportunity to work together, 
along with Senator Hutchison, on the Board of Visitors for West 
Point. I know how deeply you care about the well-being of our 
soldiers.
    I believe that when we were meeting yesterday, you told me 
that the 10th Mountain Division was the most deployed unit. I 
want to associate myself with the concerns that all of us have 
expressed about the stress of repeated deployments.
    I had not heard the tragic news that Senator Chambliss 
shared with us today, but it indicates that we have so far to 
go in meeting the mental health needs of our troops and of 
their families who are often under stress also. I know from our 
conversation that you are committed to that, and I was pleased 
to hear you endorse an increase in the size of the Army, which 
is the ultimate answer.
    I am concerned about press reports that indicate that the 
Pentagon has been given an assumption of a zero real growth in 
the budget for next fiscal year. In addition, I am told that 
Secretary Gates has tasked the Services with coming up with 
some $60 billion worth of cuts.
    It seems to me that the defense budget should reflect our 
military needs and requirements and be informed by the QDR, 
which is underway now.
    What are your views on how the budget should be put 
together and what should drive the levels?
    Mr. McHugh. Senator, again, speaking as a member of the 
House Armed Services Committee, I agree with you.
    One of the--I do not want to say frustrating, but one of 
the interesting aspects of being a nominee is that once the 
President indicates his intention to nominate you, I resigned 
from the House Armed Services Committee. So I knew less. There 
is the very important dictate of not an assumption of 
confirmation. People talk to you less. I am not as smart as I 
used to be, and that is probably not reassuring to many people, 
including myself. I do not have a lot of information.
    My initial reaction, when reading the press reports about 
the assumptions in the programming budget instructions, was 
that is probably not an unwise thing to do. I place it under 
the rubric--and this is a hope. It is not based on knowledge. I 
place it under the rubric of hope for the best and plan for the 
worst. I suspect, without having any conversation with the 
Secretary of Defense that he felt it was important to try to 
task all the Services to find as much waste, as much 
duplication, as many savings as is possible. So whatever the 
eventual budget line may take, they have an arsenal of possible 
savings they can revert to. That may or may not be accurate, 
but that was my hoped-for reading of it.
    I think it is fair to say that any secretary wants more 
money rather than less, but at the end of the day, having read 
title 10, the President and the Secretary of Defense, in 
concert with the Congressional Budget Office are going to tell 
you what your budget targets are and you have to fit within 
there. I think it is probably a factor of wise planning, but I 
may well, if I am confirmed, be instructed differently when I 
get there.
    Senator Collins. I do hope that you will share with this 
committee, assuming your confirmation, what you believe the 
true needs are for our Army. I do not think any of us wants to 
see the Army or any of our Services shortchanged in order to 
meet budget goals. You, to me, have an obligation to tell us 
what you need and what the military requirements are, and then 
it is our job to try to find the money.
    It is certainly appropriate for there to be a review of all 
programs to determine their necessity, to eliminate wasteful or 
nonperforming programs, but that should be an ongoing process 
that is different from having to meet an artificial budget 
number.
    Mr. McHugh. Senator, I agree, and as I know you are aware, 
the law does not just allow, it requires the military officials 
and others to come and give their honest personal opinion. If I 
were to be confirmed, I would absolutely insist upon that 
within the military and Army officer corps. We all have to live 
within the Office of Management and Budget's directives, but 
that does not in any way obviate the prerogatives of this 
Congress, this committee in their role. I have sat in far too 
many committee hearings and heard things that were perhaps not 
as accurate as I would liked. That would not be a policy I 
would endorse.
    Senator Collins. Thank you.
    I want to talk to you about the National Guard. The 
National Guard has also suffered from repeated deployments. We 
put a lot of strain on our Guard and Reserve, their families, 
and their employers.
    An issue that the Guard members have brought to me, in 
addition to the repeated deployments, is the state of their 
readiness when they come back home. When they are deployed, 
they are provided with all the equipment that they need, but 
frequently that equipment is left in Iraq or Afghanistan. I can 
understand the rationale for that. But what happens then is the 
Guard members come back home and they no longer have the 
equipment that they need. This is a problem that I am hearing 
increasingly about from the Maine National Guard.
    Are you aware of this problem and the decreased readiness 
of our Guard units that results?
    Mr. McHugh. I am, Senator. It is not just the Guard, 
frankly. It is Service-wide, Army-wide, and the Reserve and 
Guard units individually are facing the same problem. The Army 
is attempting to try to resource as best they can.
    As I am certain you agree, the primary objective is to make 
sure that once troops arrive in a combat theater, be it Iraq or 
Afghanistan, that they are provided with everything they need. 
In fact, in most instances, they have equipment choices and a 
menu that is more than they would need on any particular 
mission, but they can shape and tailor.
    The problem is upon redeployment that the Guard, the 
Reserves, and much of the Active components do not have those 
at-home base units particularly for training that they would 
like. The Army is working hard to try to rebalance that. The 
Guard is a good news/bad news; the Reserves is a good news/bad 
news. When all of these hostilities started just prior to 2001, 
the average unit in the Reserve component had about 30 to 35 
percent of their deemed required equipment. There has been a 
substantial investment in the ensuing years. It is now 60 to 65 
percent. That is a doubling, obviously. That is good progress. 
But it also mathematically shows you have a ways to go. So it 
is hard to begin to resource a challenge that has been in 
existence really since post-World War II when you are in active 
combat.
    The force generation model, the reset model called Army 
Force Generation that is applying against both the Active and 
the Reserve component is intended to provide some time to do 
retrofitting and resetting of equipment in a more reasonable 
calendar framework and also, of course, give those troops a 
little bit more time at home should help. But that is a work in 
progress, and it is certainly something we have to take a close 
look at.
    Senator Collins. Thank you. I realize my time has expired.
    Let me just mention to you, as I did yesterday, the Maine 
miliary authority in northern Maine does cost-effective work in 
refurbishing high mobility multipurpose wheeled vehicles 
(HMMWVs) and other vehicles. It consistently performs this work 
at a lower cost than the Army's own depots. I hope you will 
look at that as an area where you could achieve savings for the 
Army by having more work directed to that unit which provides 
high-quality, low-cost work for the Army.
    Mr. McHugh. I appreciated our conversations, Senator. As 
another, for the moment at least, Member of Congress who 
represents largely rural areas, I promise you we will take a 
careful look at it.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service, and to your families, we 
appreciate the sacrifices involved in public service both past 
and present, as well as future.
    Mr. McHugh, we have had quite a bit of discussion this 
morning about the importance of mental health care for our 
troops, the rising rate of suicides, the challenge of the 
mental stress with redeployments and in the case of 
nondeployments as well.
    Our subcommittee has had a number of hearings and the 
tragic loss of Lieutenant Colonel Rivas is just one of the 
continuing challenges we have. It saddens us all that we are 
experiencing the loss that we are experiencing in so many cases 
to our military, to those who have departed, as well as to 
their families.
    Do you have any thoughts about what you might do as you 
take this job--you mentioned about looking to 20 programs that 
are in place. In your former position as chairman of the House 
Personnel Subcommittee and serving on that, is there any one 
thing in particular that would stick out to you that we might 
consider doing?
    Mr. McHugh. I really do not have an answer for that. 
Senator, as you alluded to, it is something we have been 
looking at. I wish this were an overnight phenomenon, but as 
you recognize, it is something we have been dealing with for 
some time. I think if there were an obvious answer, we would 
have struck upon it.
    One of the more important aspects of this--and it is true 
whether you are trying to combat sexual harassment or other 
problems and that is to have a cultural change. Right now, my 
impression is there is a two-part problem. The problem of the 
soldier, sailor, marine who believes if he or she seeks out 
help, if they are feeling depressed, if they are having 
thoughts of harming themselves, that somehow that makes them 
weak, somehow that makes them unfit for duty. On the other 
side, I am just not sure that those men and women in uniform 
who serve with those people have the knowledge or the awareness 
to recognize a problem and to help.
    I think the Army started off well--and this is something 
that Senator Akaka and I had a chance to talk about--with the 
Ask, Care, and Escort (ACE) program. Every soldier is given a 
wallet-sized laminated card to talk about this, to recognize 
the signs when your buddy may be having bad thoughts or 
challenges, not just to recognize it, but as the ``C'' says, to 
care enough to ask about it, perhaps in extreme circumstances, 
to take away an item they may be threatening to hurt themselves 
with, and then to escort, to take them to some care provider.
    We have to make sure this is not just something on a piece 
of paper. It is not something we hand out on that card. I just 
praise the card. I think it is a good thing, but it has to be 
instilled in the culture just as the unacceptability of sexual 
harassment and assault.
    The best answer to this is this 5-year longitudinal study, 
but what is frustrating about that is right now 89 suicides 
this year in the U.S. Army. We really do not have 5 years. We 
have to make sure that the things we are doing are as effective 
as possible and people feel comfortable that when they are 
troubled, it is okay to say I need help.
    Senator Ben Nelson. The increase in the number of potential 
mental health providers within the military I think is going to 
help as well, but the challenge is to create that cadre of 
mental health providers. I know the military has stepped 
forward on that, and I hope that you will proceed further with 
those efforts.
    Mr. McHugh. If I may, Senator, Pete Geren, who is frankly 
kind of a hero of mine and he is a good friend, sat before this 
committee 2 years ago and made a pledge to hire 200 new mental 
health counselors and providers. They have worked like the 
dickens to try to meet that. They are about halfway there. It 
is not unlike the challenge of bringing medical specialists 
into the military. You have to rely not on the money aspect and 
any other reason, but you need to identify the people who want 
to make a difference and volunteer. That is a work in progress, 
a lot of progress being made, but we have to continue. 
Absolutely true.
    Senator Ben Nelson. I appreciate your pledge to continue 
that effort because it is so critical.
    The troop increase in Afghanistan has, obviously, been the 
direct result of our commitment to making sure that we improve 
the military presence but get the results in missions that we 
are after in Afghanistan. For a long time, with respect to 
Iraq, I pushed for some metrics or benchmarks to establish, 
first of all, what the mission or missions are and a way of 
measuring progress towards those. In Afghanistan, on the 
authorization legislation, we have put in place the request for 
establishment of measures of progress which would help us, as 
objectively as we possibly can, measure how we are doing 
towards those projects.
    I have written letters to both Secretary Clinton and 
Secretary Gates urging them to develop a series of those 
progress measures. I have been informed that they are working 
toward that, and I would hope that you would find that to be 
something that could be helpful to you in your position as 
well. I think the American people want to know as much as they 
can about what our overall mission is and what the sub-missions 
may be. Instead of doing as we did with Iraq--we are winning, 
we are losing, we are going sideways--we are in a better 
position to say we are 70 percent toward that goal, we are 40 
percent, or here is what else we need to do to achieve it.
    Do you have any thoughts about that?
    Mr. McHugh. My thought is I am about to get myself in 
trouble.
    Senator Ben Nelson. Well, I do not want to get you into 
trouble.
    Mr. McHugh. As a Member of Congress, a Member of the House 
of Representatives, I wrote the first bill in the House to 
create a series of measured benchmarks for Iraq. I happen to 
believe that it is not unreasonable to have a set of indices by 
which you can judge where you are, what has happened. I happen 
to believe as well the other side of that coin is it is pretty 
important to let those, in this case the Afghans, previously 
the Iraqis, know what we expect of them.
    Senator Ben Nelson. Absolutely.
    Mr. McHugh. But what challenges me about the process 
though, Senator, is that it becomes a means by which we utilize 
the measurements to do the wrong thing and to make bad 
decisions. But certainly if I were to be confirmed, if 
confronted with a set of benchmarks, I would tell you I have a 
history of understanding those and working with them, and if it 
is the dictate of this Congress and the President and signed 
into law that kind of measurement indices, I would do 
everything I can to provide you the most accurate information 
possible.
    Senator Ben Nelson. I appreciate that very much.
    On a lighter note, I was relieved that you did not get 
asked or try to repeat the names of the water plans and 
problems down in that southeastern part of our country.
    Mr. McHugh. Hoochee something.
    Senator Ben Nelson. Something like that. [Laughter.]
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. It was an amazing statement, was it not?
    Anyway, thank you, Senator Nelson.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. First, Mr. Chairman, 
I would offer a comment about the preparation that Dr. Westphal 
has made for this position. He went to college in New York, 
Oklahoma, which made Senator Inhofe pretty happy, Missouri, 
which is going to be very good news to Senator McCaskill, and 
he spent a career in Maine, which obviously pleased Senator 
Collins. Before the hearing began, he came up and told me he 
had gone to high school in Virginia, but not only had he gone 
to high school in Virginia, he had gone with Senator Udall's 
cousin, Senator Tom Udall, which just took out three States. If 
he can come up with having spent a summer in Nebraska, he has 
pretty well run the table I would say.
    Chairman Levin. Do not forget the Red Wings.
    Senator Webb. That is right. He also mentioned he was a 
Detroit Red Wings fan. So he pretty well ran the table this 
morning.
    Mr. Garcia, I would like to start with you, first, by 
saying how much I appreciated the fact that you mentioned 
growing up in the military. I did as well. There was one period 
in my life where my father was deployed or stationed in places 
where the family could not join him for 3\1/2\ years. I have 
often remarked, as someone who grew up in that environment and 
also had to watch a son and a son-in-law deployed to combat, it 
is probably harder being a family member either with a father 
or a spouse deployed or having a child deployed. It is harder 
doing that than it is being deployed, I think, in terms of a 
lot of the emotions that it brings to people. So it is a great 
understanding that you bring to your position.
    I would like to ask you about this recent debate over 
standards at the Naval Academy as a result of diversity goals. 
We all feel very strongly that, as much as possible, our 
military should represent America, but we also, all of us I 
think, feel very strongly that should occur with demonstrable 
standards of fairness. This has been quite a debate over the 
past month or so. Are you familiar with this?
    Mr. Garcia. I am familiar with the piece, sir.
    Senator Webb. Have you seen any of the actual data that is 
floating around?
    Mr. Garcia. I cannot say I can speak definitively on the 
data. I am familiar with the debate and saw the original piece 
and would say this, Senator, that like yourself, my brother-in-
law, who is here behind me, is an academy grad. Obviously, that 
institution has over the past century provided an elite, 
extremely rigorous, challenging, unique education and an inflow 
into our officer ranks both on the Navy and the Marine Corps 
side, and anything that would diminish that status is something 
we have to guard against.
    I would also concur with you that we are at our best, we 
are at our strongest when we draw from all over the country.
    Senator Webb. I think in general, particularly in places 
like the Service Academies, but in general for every slot that 
is given to one person, it is arguably taken away from someone 
else. There are only so many people who can go to the Naval 
Academy. There are only so many people who can get into 
different kinds of schools, mid-level schools, and these sorts 
of things. I would just ask that you help us sort out this 
debate. We want to be able to stand in front of the American 
people and say that we have been fair on these issues.
    Mr. Garcia. I would just respond in this way, Senator. At a 
time when having met those recruiting goals, downsized our Navy 
and Marine Corps and now being able to be more selective than 
ever before, I commit to you that if confirmed, I will do 
everything I can to ensure that we solve that puzzle.
    Senator Webb. I appreciate your saying that, although we 
have not downsized the Marines, to my knowledge.
    Mr. Garcia. Excuse me. I meant met the recruiting goals 
early. That would be a better way of saying it.
    Senator Webb. Thank you. Thank you for that comment.
    Congressman McHugh, when you were the chair of the House 
Personnel Subcommittee in 2005, you introduced an amendment 
that would, in the language that we have been given in my 
office, have banned Army women from forward support companies 
at a time when nearly 20,000 of them were actually already 
deployed in those billets. It got strong push-back from the 
uniformed military. DOD non-concurred at the time. You offered 
a substitute amendment similarly.
    I do not want to go back and rehash that, but as Senator 
Levin mentioned, there were some questions on this. I 
appreciate your commitments to Senator Levin with respect to 
wanting to take a look at where it works and where it does not 
work.
    We have a lot of confusion out in the military today. There 
was a 2007 RAND study taking a look at this issue that found 
that there were situations where people would believe that they 
were complying with DOD policy, but it could be a contradiction 
with Army policy on some of these standards.
    I would like to offer, if I may, a suggested formula that I 
used when I was Secretary of the Navy because I had raised 
similar issues. My strongest objections early on were the 
interference of the political process into the day-to-day 
decisions that should have been left to the military on issues 
like this. I had questions raised on two confirmation hearings 
about my views on women in combat.
    When I became Secretary of the Navy, I decided that the 
best way to do this was to go to the Active Duty military and 
have them report up to the political process rather than having 
the political process tell the military what to do. I convened 
a panel of 28 senior officers and NCOs, and 14 of them were 
male, 14 of them were female. I sent them to installations 
around the world. Instead of having them report back to me, I 
had them report to the warfare chiefs, in this case, submarine, 
air, and surface, and then to the Chief of Naval Operations. 
Then I had essentially the uniformed military report to the 
political process about how they thought this should look.
    We opened up more billets in the Navy to women than any 
previous Secretary of the Navy had ever opened, but we did it 
with the military speaking to the political process. I would 
venture that now, after these many years of deployments, that 
it could be the time for the Army to do something similar.
    Mr. McHugh. I appreciate that, Senator. That is an 
interesting take. As you alluded, I tried to explain to Senator 
Levin that amendment was--I had to offer it because I was the 
subcommittee chairman, but it was not my amendment. It was the 
full committee chairman. The walk-back amendments were mine.
    I frankly do not have any information before me now that 
would suggest that the current policy in place since 1994 
should be changed, but clearly, this should be a bottom-up 
exercise, should it come to that. I am not aware that Secretary 
of Defense Gates is engaged in a reevaluation. My 
understanding--and it is not based on any direct conversations 
with him--is that he feels--and for the moment, I would 
concur--the current policy is working.
    But clearly, that would be a very effective way because my 
interest would be in making sure the most, rather than the 
least MOSs are open to women. That is based on, as I mentioned 
to the chairman, the 10 visits to Iraq I have had. They are 
doing an irreplaceable job. If it should come to that, I 
appreciate the suggestion and I would certainly pass that 
along.
    Senator Webb. You would have that jurisdiction as Secretary 
of the Army without having to be directed by the Secretary of 
Defense, which is essentially what I did when I was Secretary 
of the Navy. I would just encourage you to think about this 
because the process now has been tested. From all indications 
that we have had in our office, there is some confusion in 
terms of whether policies are actually being met with the 
realities of where women are. This is probably best addressed 
systemically rather than anecdotally. I would encourage you to 
look at it.
    Thank you, Mr. Chairman.
    Mr. McHugh. Thank you, Senator.
    Chairman Levin. Thank you, Senator Webb.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Good morning. I 
want to thank all three panelists for taking the time to be 
here with us today. I have some very serious questions I want 
to direct to Congressman McHugh.
    But I cannot help myself, Mr. Garcia. I have memories of my 
own family's time here in Washington. I have five brothers and 
sisters. My cousin, Senator Tom Udall, had five brothers and 
sisters. I see your children and their cousins sitting here. It 
brings a smile to my face. Wonderful families.
    Congressman McHugh, you and I served in the House together 
on the House Armed Services Committee, and I learned a great 
deal from your leadership and from your focus on the welfare of 
our soldiers, our marines, our airmen, and our sailors. We have 
had a lot of conversation here this morning about what has been 
happening with our soldiers when they deploy home.
    I represent the best State in the Nation. There is no 
question about that. One of the best communities in the Nation 
is Colorado Springs. There has been a large level of concern 
raised recently tied to a series of articles that the Colorado 
Springs Gazette has written. I would like to ask you, first, if 
you would commit to me to reading those articles about our 
service men and the acts that they have been committing in the 
community of Colorado Springs.
    Mr. McHugh. I will, Senator. I became aware of those 
articles last night, and I promise you I will review them 
carefully.
    Senator Udall. They are sobering. They are concerning. They 
are horrifying, and they also point to the mission we have been 
discussing here today, which is how do we take care of our 
soldiers when they return from theater.
    I would like to ask you about ways that the Army might 
think outside the box in addressing this looming set of 
challenges. Beyond building a requirement for uniform mental 
health providers into the budget, are there other ways that the 
Army might move forward? For example, how about a new category 
of mental health providers like physicians' assistants? I would 
turn to you for your thoughts.
    Mr. McHugh. Generically--and again, because I have not had 
the opportunity to be briefed on exactly what is happening 
internally in the Army and would not unless I were confirmed--I 
think we have to explore all possible opportunities and all 
possible paths of remedy.
    I do understand, with respect to the situation that you 
mentioned in Colorado, there is a pilot project, Confidential 
Alcohol Treatment and Education Pilot (CATEP) project, that I 
am pretty confident you are aware of that is being established 
in three other facilities. Right now, the Alcohol and Substance 
Abuse Program (ASAP) is intended to encourage people to self-
identify, come in, receive assistance, but one of the 
challenges about that is it does require commander notification 
of that self-referral. The project, as I understand it at Fort 
Lewis and two other facilities, will waive that reporting 
requirement.
    I cannot make a promise here, Senator. I know you 
appreciate and understand that, but it may be, particularly 
given the news reports that I have understood have come out of 
the Epidemiological Consultation Study that have found, for 
example, more than 80 percent of those who committed violent 
acts at Fort Carson, in fact, less than 50 percent of them 
sought any kind of care and treatment. Perhaps inclusion in 
that CATEP study would be appropriate.
    I do not know the details. I do not want to make you a 
promise I cannot keep, but I do promise you that if I am 
confirmed, we would certainly take a look at that.
    Senator Udall. You anticipated my question. What I hear you 
saying is you will look into it, and that is what I was going 
to ask you to do because I think it would be very effective.
    Mr. McHugh. Absolutely.
    Senator Udall. If I might, let me turn to two other 
matters. I think you are aware of the Pinon Canyon maneuver 
site discussion that has been occurring in Colorado. I would 
like to ask you, if you are confirmed, can you commit that if 
the Army considers going ahead with the expansion, you would 
only proceed on the basis of willing sellers or leasing 
arrangements and would not use eminent domain.
    Mr. McHugh. Again, under the rubric of not wanting to make 
a promise I cannot keep, I will tell you as someone who 
represents the Adirondacks Park, the largest publicly held park 
in the Lower 48, I have a healthy distrust for the process of 
eminent domain. We always want to try to work toward willing 
sellers.
    I think part of the Army's problem--and again, I am 
answering as a Congressman--when it came to Pinon Canyon is 
they did not do as effective of a job as I think you and others 
and myself included would have liked in terms of engaging the 
community, trying to work for a positive outcome, having 
cooperative negotiations. That has to be the first path. If 
there is an opportunity to resurrect Pinon Canyon, I would 
certainly stand ready to work with you to try to search for 
that willing seller, that cooperative agreement because that is 
always the best way to go. The Army should want--should want--
happy, good, positive neighbors, and you do not get that by 
going in and condemning property.
    Senator Udall. Thank you for that. Yes, I would note that 
previous leaders in the Department of the Army have made it 
clear that eminent domain would not be used and they would 
pursue, if this moved forward, willing sellers or lease 
arrangements.
    I said I wanted to make two additional points. I want to 
make a third one very briefly, which is to acknowledge the 
service of Major General Mark Graham at Fort Carson who has 
been a real leader on this mental health front. I think he has 
the talent, insight, and a personal set of stories that we 
ought to continue to utilize. I wanted to acknowledge General 
Graham in that regard.
    Let me end on this note, and you do not need to respond, 
Congressman. But I think I would like to believe that Congress 
comes up with new laws to address new or abiding challenges and 
that Congress repeals laws that do not make sense in the 
context in which they now operate. They are antiquated or they 
no longer reflect the reality of our society.
    I believe Don't Ask/Don't Tell is a failed policy. It is a 
good example of a law that Congress should repeal. I do not 
believe it will be easy to do, but it needs to be done. I 
believe this discriminatory policy undermines the strength of 
our military and the basic fairness of the principles on which 
our great Nation is founded. I look forward to working with you 
and with others at DOD to accomplish the full repeal of Don't 
Ask/Don't Tell. I look forward to working with you after you 
are confirmed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Udall.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Congressman McHugh, Dr. Westphal, and Mr. Garcia, I 
congratulate you on your nominations from our President, and I 
wish you the best of luck. I feel very good about you. I also 
want to welcome all of your family members here. It has already 
been a long morning, and they look, some of them, kind of 
tired. But it is great that you are all here.
    Representative McHugh and Dr. Westphal, I just wanted to 
talk a little bit about the wounded warriors. Representative 
McHugh, your opening comments spoke about your concern of the 
wounded warriors and your obvious commitment to them.
    Several weeks ago, I attended the Wounded Warrior Parade at 
the Pentagon, and it was a most inspirational moment for me. It 
was an opportunity to speak to these individuals and really 
gain a sense of the healing challenges that they face.
    Following the parade--there were five Senators that 
morning--we met with the Chief of Staff of the Army, General 
George Casey, and the Director of the Army Staff, Lieutenant 
General David Huntoon. Then last month, my staff met with the 
Commander of the Warrior Transition Command, Brigadier General 
Gary Cheek.
    I know that when our soldiers are injured--and I am pleased 
to know that the Army immediately assesses each soldier in 
order to devise a tailored, individual development plan for 
them, whether it is reintegration back to their combatant 
units, reclassification of their Active Duty status in order to 
learn a new Army specialty, or transition to civilian life. We 
have actually had several wounded warriors come and talk to us 
about that.
    But I think it is encouraging that many of the former 
wounded warriors are a part of the warrior transition unit as 
mentors.
    I am also pleased that the Army plans on developing an 
electronic integrated system to track the progress of our 
wounded warriors.
    One area that has caught my attention is the disciplinary 
process, and according to General Cheek, the soldier 
perceptions vary on acceptable conduct while healing and 
transitioning. He recommended that the Army draft policy 
guidance to clarify the Army expectations of the warriors in 
transition.
    With that background, a couple of questions are, how do you 
plan on institutionalizing an Army directive aimed at 
clarifying the expectations of our warriors in transition? How 
do you envision working with General Casey to develop programs 
of instruction for the incoming warrior transition unit company 
commanders and the 1st sergeants? Do you plan on incorporating 
lessons learned regarding the wounded warrior care? 
Representative McHugh?
    Mr. McHugh. I was interested to hear you say that because 
in my visits to the transition units, whether it is at Fort 
Drum in my district or in other places, in the sessions we had, 
where we asked the officers to leave, one of the major 
complaints was, gee, this guy does not have to do this and I 
have to do that. It seems to fit into the observation you just 
made. I guess one of the shortcomings you can assess against me 
is that I just assumed those were personal gripes that occur.
    If General Cheek says there is a lack of uniformity in 
direction and instruction with respect to the anticipated and, 
in fact, demand behavior amongst the cadre of wounded warriors, 
then we have to fix that. It would seem to me, as I understood 
you to say, Senator, General Cheek suggested sort of directive, 
that makes a reasonable way forward. Obviously, I cannot commit 
to that, but certainly amongst all the other problems we are 
facing, that would seem to be one of the more basic and should 
and could be accommodated.
    The training issue is one that, if not more problematic, is 
certainly more fundamental. I had the opportunity to work with 
Dr. Vic Snyder who served for a time as the ranking member and 
ultimately as the chairman of the Personnel Subcommittee in our 
House, a good man from Arkansas. We helped formulate a part of 
what became the Wounded Warrior Care Program. We were very 
proud of it and thought everything was going in the right 
direction.
    But as I noted earlier in talking about suicide prevention 
and other things, the paperwork is just the first start. The 
warrior transition units--we have some 36 of them in this 
country. Everybody goes in with the best intentions, but in 
spite of that and in spite of a good approach that the House, 
this committee, the HASC, and others helped formulate, there 
still are gaps in the uniformity and effectiveness of 
implementation. We have to do a better job there.
    It starts with training, Senator, as you suggested. I have 
been advised--and it is certainly something I want to make sure 
is, indeed, happening--that the Wounded Warrior Care Program is 
beginning to develop and instill curricula at both the 
battalion and the brigade level to make sure everybody from 
officer down to our 1st sergeants are instructed as to the 
mission of the wounded warrior units and also what the care 
standards are and what the expectations are.
    On paper, that sounds good. That is all I know at this 
point, but I promise you that is something certainly we not 
only need but will follow up on, if confirmed.
    Senator Hagan. I know you are sincere in your commitment to 
this.
    Dr. Westphal?
    Dr. Westphal. Senator, I would agree with everything that 
the Congressman said.
    I just had one additional dimension that actually came up 
yesterday in a conversation I had with an individual in the 
Army in the manpower/reserve affairs piece where he was 
bringing me up to date on some information. I was asking him 
about the issues that the Secretary and the Army will need to 
face or think about into the future, consistent with the idea 
that we are still going to be deployed heavily in Afghanistan 
and still in Iraq.
    One of the things he said was we are learning slowly but do 
not have conclusions about head trauma, for example. We are now 
beginning to identify studies and have real experts, 
neurologists and other experts in these areas, begin to 
understand the full effects of what happens to soldiers when 
they come back and have been close to some type of an 
explosion.
    I went further and asked, are you looking at behavioral 
aspects as opposed to simply physiological, neurological 
issues, and he said, yes, we are concerned about how this is 
altering behavior, how it is affecting behavior, how it is 
affecting performance as they are in the reset period.
    So I would just add that to the Congressman's point, that 
this is an area we need to really focus on because there are 
more and more of those kinds of injuries faced by our soldiers 
and there are a lot of unknowns there.
    I think as Congressman McHugh mentioned a little bit 
earlier in his comments, we are given timelines in our 
briefings. The Army is doing a study. This will take 5 years to 
do it, and there are not 5 years. These issues have to be 
addressed now. So I would agree with the comments of the 
Congressman that we have to focus on this more aggressively.
    Senator Hagan. Thank you, gentlemen. I see that my time has 
expired. Thank you.
    Mr. McHugh. Thank you, Senator.
    Chairman Levin. Thank you, Senator Hagan.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman, and thank you 
to all of you for your service.
    Representative McHugh, I have been visiting with the dairy 
farmers in my State, and it is a rough time. We wrangled over 
the postal bill yesterday. So I know that as you face new 
challenges, at least you can push some of those aside and 
realize they are no longer on your plate.
    Dr. Westphal, I am going to give you a free pass this 
morning because I am a political science major from the 
University of Missouri. So you, obviously, are brilliant since 
you got your doctorate from the University of Missouri in 
political science. What year did you get your doctorate?
    Dr. Westphal. 1980 is when I finished my Ph.D.
    Senator McCaskill. So you are certainly familiar with David 
Luthold and Drs. Casey and Tilliman, all of the professors that 
have some responsibility for me sitting here.
    Dr. Westphal. I took classes from all those, Senator.
    Senator McCaskill. Absolutely. It is a great school and it 
is great that you are coming back into the service of your 
country in this regard.
    Let me first begin with you, Congressman McHugh, and ask 
you. No one has, so far, asked you about your view on Don't 
Ask/Don't Tell in the military. I think it is important that we 
get that on the record at this juncture.
    Mr. McHugh. Thank you for the question. By the way, I am a 
political science major too.
    Senator McCaskill. That counts. Unfortunately you are not a 
tiger though.
    Mr. McHugh. I gave it a shot. [Laughter.]
    It is a serious issue and it is an issue that has not been 
before me as a Member of Congress since 1993. The reality is 
the President has made very clear--and I have not had a chance 
and I have not talked to the President directly, but I have 
talked to high officials in the administration, and I have no 
doubt the President is going to press forward with his intent 
to change that policy. To whatever degree remains to be seen. I 
think he would like a full reversal.
    It is also without question that Secretary Gates has begun 
a process of what he describes as softening that policy. 
Whatever that may mean remains to be seen.
    My view, as Secretary of the Army, if confirmed, would be 
to do the most effective job I could garnering the military 
input and information that I think any secretary and any 
President would like as they go forward in finalizing the 
determination. That is how I described my envisioned role to 
the administration. They seemed content with that.
    But having said that, two other factors. Whatever the 
decision of the President and the Secretary of Defense, it 
would be my responsibility, if confirmed, or any Service 
Secretary's responsibility thereafter to do the best job he or 
she could to come before this committee, the HASC, whichever 
other relevant committees may be afoot to best describe and as 
most effectively to describe the reasons, the rationale, and 
the justification for whatever policy evolves. That is the 
responsibility of a Service Secretary, as I see it, under title 
10.
    At the end of the day, I think it is worth noting, of 
course, this is a policy embedded in law, and there will be no 
overturning of it without the agreement of this Congress, the 
House, the Senate, and of course, the President.
    Senator McCaskill. Thank you.
    Further, I know that you worked on the Oversight and 
Government Reform Committee in the House, I have been very 
engaged with the help and assistance of this committee and the 
staff and certainly the chairman on contracting issues.
    There is a heartbreaking case of Rocky Baragona, a 
lieutenant colonel, who was killed in a HMMWV accident in 2003 
in Iraq. He was hit by a Kuwaiti company that is a contractor 
for the United States. His HMMWV was struck by a truck driven 
by a Kuwaiti company called Kuwait and Gulf Link Transport. The 
Army found that this company was negligent in his death, and 
his family brought suit against this company and got a default 
judgment against this company. Then they hired lawyers, came 
into the United States, and claimed that we had no jurisdiction 
over them, no in personam jurisdiction over them, and they 
ultimately prevailed in court. Now, that is the first part of 
the story.
    The second part of the story is that there have been 
allegations of human trafficking on the part of this company.
    After they have come in and hired lawyers and defeated this 
family in their effort to get compensation for their son's 
death, they are now in line for more contracts. They were put 
up for possible debarment on September 22, 2006, and as we 
speak, they are seeking, through some successor companies and 
the original company, $1.5 billion in contracts right now, 
including such things as food service, transport, and all kinds 
of things.
    There is something terribly wrong with this picture, that a 
company we would hire would negligently take the life of one of 
our soldiers and we go back to business as usual. I have 
sponsored a law that will give in personam jurisdiction in 
Federal court over all U.S. contractors in civil and criminal 
actions. I would like your view on the Rocky Baragona case and 
the inability of the military to cut off contractors who are 
bad actors. I mean, at a minimum, I would like us to get to the 
point we quit paying them bonuses--we are still paying 
performance bonuses to companies who have hurt our troops--much 
less giving them successor contracts. I would like your view of 
the Rocky Baragona legislation, and if you think personal 
jurisdiction over any contractor that we hire through the U.S. 
Government should lie in the United States.
    Mr. McHugh. Senator, as I am sure you will appreciate, I 
really cannot comment on the particulars of the case. Certainly 
as you describe it here this morning, something would appear to 
be very wrong. I would promise you, if I were confirmed, I 
would look at it carefully and get back to you and try to 
discuss it with you further.
    I know the Secretary of Defense has begun to assemble a 
task force on contracting. It does not just apply to this issue 
but, in fact, applies to the issue of guard contractors, all 
kinds of contracting arrangements across the board as to what 
their legal obligations and responsibilities are.
    My opinion has always been that if, indeed, we are going to 
contract with individuals, we ought to think very carefully 
about making them subject and under the jurisdiction of the 
laws of the United States. I understand that is a non-lawyer's 
opinion and that it is far more complex than that. But in terms 
of my sympathies, my sympathies certainly lean toward yours. 
But I just cannot comment on the particulars, but I promise you 
I would be happy--not happy--I would be obligated to look at it 
and to pursue it with you further at the appropriate time.
    Senator McCaskill. That would be terrific. I think it is 
very important that we have accountability in every aspect of 
what we do as it relates to taking care of the men and women 
who are stepping across the line for us. If somebody we are 
hiring runs over one of them with a truck, they ought to be 
held accountable. It is just pretty simple I think. Just good, 
old midwest common sense tells me that is not the right 
outcome.
    I look forward to you looking into it and I look forward to 
working all of you in your new capacities. God bless you for 
your service. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill, for 
your typical boring in on a very important question that really 
needs to be addressed.
    I just have a few additional questions for a second round.
    First of all, Dr. Westphal, I think you made reference to 
the fact that you will be the CMO, if you are confirmed, to the 
Department of the Army. In fact, you will be the first CMO. We 
established that position in 2007 out of frustration with the 
inability of the military departments to modernize their 
business systems and processes. We chose to have the Under 
Secretary serve concurrently as CMO because no other official 
in the Department of the Army, other than the Secretary, sits 
at a high enough level to cut across stovepipes and implement 
comprehensive change.
    Will that be a top priority of yours, and how would you 
balance your duties as CMO with your other duties as Under 
Secretary?
    Dr. Westphal. Thank you, Senator.
    It certainly would be a top priority. I cannot tell you 
specifically because we have not talked about it, but if 
confirmed, I would immediately meet with the Secretary of the 
Army and discuss how to move forward into the job not only of 
the CMO but also the other responsibilities of the Under 
Secretary that he would wish to assign to me.
    Having said that, I am a big believer, because I have seen 
this in other places where I have worked, that the business 
processes are critically important to the success of the 
operation. We have a huge bureaucracy. We have great challenges 
today and into the future financially and fiscally for the 
Army. The OPTEMPO is continuing to stay either steady state or 
even growing. We do not know what the QDR is going to tell us. 
We do not know what General McChrystal is going to suggest in 
terms of the future requirements in Afghanistan. We do not know 
what other combatant commanders are going to require.
    With all that uncertainty, I think we absolutely have to 
reshape this business process and redesign it and transform it, 
as you have indicated, Mr. Chairman, in your efforts to do that 
across the Department almost immediately. We have to really 
focus on that, and I think the Army recognizes that.
    Chairman Levin. It has been a longstanding frustration and 
problem. We have tried various ways, over literally decades I 
think now, to correct it. Will you just keep in close touch 
with this committee on your efforts in this area?
    Dr. Westphal. Yes, sir. In fact, I had made a mental note 
to myself that if confirmed, one of the first things that I 
would like to do is to meet with the majority and minority 
staff of the committee to get a sense of what you have been 
thinking about this and what your interpretations are of what 
you wanted to accomplish in this law so that I make sure I 
understand that because I am sure you will be asking me in the 
future.
    Chairman Levin. Yes, we will be. We would welcome that 
initiative on your part.
    Mr. Garcia, in response to the advance policy questions, 
you identified as a major challenge continuing efforts towards 
Active component/Reserve component integration and continuum of 
service. The Navy has taken the lead on this issue in recent 
years by pushing forward a sabbatical program, which Congress 
authorized on a pilot basis last year. This would allow sailors 
to leave Active Duty for a period of time to pursue family and 
career objectives and then return to Active Duty to continue 
their careers where they left off.
    We have been told that this generation of young 
servicemembers may forgo the traditional military career, 20 
years on Active Duty, followed by retirement, and instead opt 
to serve some years on Active, transfer to the Reserve 
components or out of the military altogether, then come back to 
Active Duty both to serve the individuals' needs and, 
obviously, to serve the needs of the Navy.
    Is it too early to know how this pilot program is working, 
or do we have some evidence?
    Mr. Garcia. I think it is, quite honestly, Senator, a 
little too early. My understanding, at least, is the selectees 
for the first round for the pilot program that you just 
described have just recently been notified, and what they have 
found--we can say at this point--is that bulk of them were not 
what you described as what was envisioned, that is, folks 
taking a nontraditional path to military service.
    My understanding is at this point in this first round, 
folks took an opportunity to devote full-time care to an 
injured one, a parent, grandparent. I think what is early 
enough to say is that, unfortunately, when those tragedies pop 
up in life, they do not align themselves with a schedule board 
at the Bureau of Personnel in Millington.
    But if confirmed, as soon as that data does come back--I 
think it is an intriguing program. I think it is an interesting 
idea and possibly, as you said, a way to bring more young 
people who might not have considered the traditional 20-year 
path into our Nation's service.
    Chairman Levin. You were asked, I believe, by Senator Webb 
about the diversity issue at the academies. You indicated that 
you were going to try to sort that issue out, as you put it, I 
believe, as soon as you can address it.
    I would urge that as you approach that issue and to do your 
sorting out that what you do is include in that process an 
amicus brief which retired military officers signed in an 
affirmative action case in the Supreme Court that I joined and 
a few Members of Congress joined in support of the diversity 
efforts in the military. That amicus brief pointed out the 
extremely positive effects that that effort had right after the 
Vietnam War. It is an important history.
    I urge you to read the brief to gain, if you already have 
not, an understanding of what the lack of diversity produced 
and how the effort to promote it really made a major positive 
difference in our military and frankly for the country as well. 
The military has led in this area in many ways. I would urge 
that you take a look at that amicus brief as part of your 
reachout. That effort to reach out for diversity really was an 
historic effort on the part of the military with great 
benefits.
    Mr. Garcia. I remember the brief, Senator, and I will 
revisit it.
    Chairman Levin. All right.
    Congressman McHugh, in answer to, I believe, Senator Webb's 
question about the amendments on women in particular roles, you 
indicated that yours were the walk-back amendments. I just want 
to make it clear for the record. I am not so sure everyone 
caught that, but I think it is important here historically that 
as you indicated, the amendment that was referred to in 
subcommittee was done as an accommodation to the chairman of 
the full committee, but that the correction of that, the 
undoing of that, the reversal of that was something that you 
led and that was ``walked back.''
    Mr. McHugh. That was my intended interpretation of the 
phrase, yes, sir.
    Chairman Levin. Thank you.
    There are no other questions that I have. I would only say 
this to you, Mr. Garcia, and I guess I will single you out for 
this because of the number of children that you have here and 
you have, as well, I think a niece, maybe two nieces here as 
well. Is that correct, and one nephew?
    Mr. Garcia. Three nieces and a nephew.
    Chairman Levin. Three nieces and a nephew all here, but 
your children and your nieces and nephew have really done an 
extraordinary job of trying to look attentive to the best of 
their ability. I want to give them a lot of credit. They do a 
lot of good when they come here. I hope some day they will 
recognize that they were a big help to their father and their 
uncle sitting behind him. I know how proud you are of them, but 
it is important to all of us that have families that they do 
stand behind you because you will need that kind of support. 
But they did yeoman's service here for their father and uncle 
this morning, and we commend them on it. We will not heap 
praise on the adults. They do not need it.
    At any rate, we ought to add this to the list of stress on 
the military, the stress we put on kids who try to look 
interested for 2 hours at these confirmation hearings.
    Mr. Garcia. Thank you for saying that, Senator.
    Chairman Levin. We thank you all for your service, your 
continued service. We look forward to your speedy confirmations 
and we stand adjourned.
    [Whereupon, at 12:06 p.m., the committee adjourned.]

    [Prepared questions submitted to Hon. John M. McHugh by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act changed Department of Defense 
(DOD) operations in a dramatic and positive way. I believe that the 
structure established by Goldwater-Nichols has significantly improved 
inter-service and joint relationships and promoted the effective 
execution of both military department and combatant command 
responsibilities. DOD, working with Congress, must continuously review 
the law in light of improving capabilities, evolving threats, and 
changing organizational dynamics. I am currently unaware of any reason 
to amend Goldwater-Nichols, but if confirmed I would have an 
opportunity to assess whether the challenges posed by today's security 
environment require amendments to the legislation with a view to 
continuing the objectives of defense reform.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation, now more than 20 years old, has 
ably served our Nation. I am currently unaware of any reason to amend 
Goldwater-Nichols, but if confirmed, I would have an opportunity to 
assess whether the challenges posed by today's security environment 
require amendments to the legislation with a view to continuing the 
objectives of defense reform.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. In the role of Secretary, I would principally draw on my 
experiences as the Representative of the Congressional District that is 
home to Fort Drum and the 10th Mountain Division (Light Infantry) and 
as a 16-year member of the House Armed Services Committee. In that 
capacity, I held several leadership positions, first as the Chairman of 
the Morale, Welfare, and Recreation Panel, then as head of the Military 
Personnel Subcommittee, and later as the subcommittee's ranking member. 
At the beginning of the 111th Congress, I assumed the ranking member 
position of the full committee. During the majority of my time in 
Congress, I have served as the cochair of the House Army Caucus and as 
a member of the West Point Board of Visitors. I have seen firsthand the 
dedication and sacrifice of America's service personnel and have 
interacted extensively with their civilian and military leadership. If 
confirmed, the leadership experience I have gained through my career as 
a public servant has prepared me well to serve as Secretary of the 
Army.
                                 duties
    Question. Section 3013 of title 10, U.S.C., establishes the 
responsibilities and authority of the Secretary of the Army.
    What is your understanding of the duties and functions of the 
Secretary of the Army?
    Answer. The Secretary of the Army is the head of the Department of 
the Army and is responsible for, and has authority to, conduct all 
affairs of the Department of the Army as prescribed by law, by the 
President, or by the Secretary of Defense.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary Gates would prescribe for you?
    Answer. I expect that if I am confirmed, Secretary Gates would task 
me to implement the President's national security objectives throughout 
the Department of the Army. Further, as he has done with other military 
department Secretaries, Secretary Gates may prescribe for me additional 
duties that support him in carrying out his responsibilities to ensure 
that DOD successfully accomplishes the many demanding and varied 
missions it has been entrusted with. At this time, I am not aware of 
any additional duties Secretary Gates may be considering assigning to 
the Secretary of the Army. However, if confirmed, I would carry out, to 
the best of my abilities, all duties assigned to me by law or the 
Secretary of Defense.
    Question. What duties and responsibilities would you plan to assign 
to the Under Secretary of the Army?
    Answer. The Under Secretary serves as the Secretary's principal 
civilian assistant and advisor on issues of critical importance to the 
Army. If confirmed, I would review the Under Secretary's current 
assignment of duties and functions to determine the capacities in which 
he might most appropriately support my efforts to ensure that the 
Department of the Army is effectively and efficiently administered in 
accordance with law and the policies promulgated by the Secretary of 
Defense. Further, pursuant to section 904 of the National Defense 
Authorization Act for Fiscal Year 2008, I would designate the Under 
Secretary as the Chief Management Officer of the Department of the 
Army, with the primary management responsibility for business 
operations. In this capacity, if confirmed, I would assign the Under 
Secretary such duties and authorities as Chief Management Officer as 
are necessary to organize and administer the business operations of the 
Army effectively and efficiently in accordance with the policies 
promulgated by the Secretary of Defense. In accordance with section 908 
of National Defense Authorization Act for Fiscal Year 2009, I would act 
through the Under Secretary in his role as Chief Management Officer to 
continue the ongoing business transformation of the Army.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Secretary of the 
Army?
    Answer. Although I look forward with confidence to assuming the 
duties of the Secretary of the Army should the Senate confirm me, I 
recognize that every new Secretary has much to learn. I would work to 
further my understanding and knowledge of the Army, its people and 
organizations, the challenges it faces, its interaction with DOD, and 
the resources necessary to sustain and transform it. I would work with 
and through the talented and dedicated military and civilian personnel 
serving the Department to broaden my expertise and increase my 
knowledge, and I would seek advice and counsel from the many and 
diverse stakeholders dedicated to the success of the Army, including 
the Members and staff of Congress.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of the Army reports directly to the Secretary 
of Defense and ensures that his priorities are implemented in the 
Department of the Army.
    Question. The Deputy Secretary of Defense.
    Answer. The Secretary of the Army works closely with the Deputy 
Secretary of Defense to ensure that the Secretary of Defense's 
priorities are implemented in the Department of the Army.
    Question. The Under Secretaries of Defense.
    Answer. If confirmed, I, the Under Secretary of the Army, and the 
Assistant Secretaries of the Army will coordinate and work closely with 
the Under Secretaries of Defense to ensure that the Department of the 
Army's actions complement the priorities set forth by the Secretary of 
Defense and the Deputy Secretary of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Secretary of the Army coordinates with the Chairman of 
the Joint Chiefs of Staff to ensure that he has all the information and 
support necessary from the Department of the Army to perform the duties 
of principal military advisor to the President, National Security 
Council, and Secretary of Defense.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Secretary of the Army coordinates with the Vice 
Chairman of the Joint Chiefs of Staff to ensure that he has all the 
information and support necessary from the Department of the Army to 
perform his duties.
    Question. The Under Secretary of the Army.
    Answer. The Under Secretary of the Army is the principal assistant 
to the Secretary of the Army. The Under Secretary acts with the full 
authority of the Secretary in the management of the Department and 
performs any duties the Secretary of the Army gives him.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army performs his duties under 
the authority, direction, and control of the Secretary of the Army and 
is directly responsible to the Secretary according to title 10 of the 
U.S.C.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries perform specific oversight roles 
delegated to them by the Secretary of the Army.
    Question. The General Counsel of the Army.
    Answer. The Army General Counsel is the senior civilian legal 
advisor to the Secretary of the Army. The General Counsel also serves 
as the Secretary of the Army's chief ethics official.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army is charged with inquiring 
into and reporting on the discipline, efficiency, economy, morale, 
training, and readiness of the Army, as directed by the Secretary of 
the Army or the Chief of Staff.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving nonfederalized National Guard forces and on 
other matters as determined by the Secretary of Defense. The Chief, 
National Guard Bureau also is the principal adviser to the Secretary of 
the Army and the Chief of Staff of the Army, and to the Secretary of 
the Air Force and the Chief of Staff of the Air Force, on matters 
relating to the National Guard, the Army National Guard of the United 
States, and the Air National Guard of the United States. Because the 
National Guard is a key element of the Reserve component, the Secretary 
of the Army must work closely with the Chief, National Guard Bureau to 
provide overall supervision of National Guard matters across all 
aspects of Army business as prescribed under title 10.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Secretary of the Army?
    Answer. In my view, the Army faces major challenges in two key 
areas: the stress on the force and properly equipping the force. 
Soldiers and their families continue to experience tremendous strain as 
they defend our Nation at home and abroad. Many are experiencing 
multiple deployments with too little time in between to fully recover. 
This stress is taking its toll and is manifested in a variety of areas, 
including rates of suicide and divorce.
    Additionally, the Army faces the challenge of resetting its 
equipment after many years of hard use under extreme conditions. As the 
Army shifts forces from Iraq to Afghanistan, the equipment will need to 
be repaired and refitted--all while continuing to fight in both Iraq 
and Afghanistan. While the Army remains committed to equipping its 
forces for the current fight, it must continue to invest in 
modernization to ensure properly equipped forces for the future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would work with the Secretary of Defense, 
Congress, and the rest of the Army's leadership to reinforce effective 
programs that are already in place, make adjustments where appropriate, 
and, as needed, initiate programs that address new challenges. Taking 
care of soldiers and their families is fundamental to properly 
maintaining the force. Family support programs have improved 
tremendously over recent years, as have medical and behavioral health 
services that are now available to soldiers and family members; 
however, there is always room for improvement. Ultimately, the 
challenge of long and frequent deployments boils down to an equation of 
supply and demand. The Army must always be able to provide enough 
forces to meet the needs of the commanders who are fighting the wars 
and at the same time increase the time soldiers are able to spend at 
home between their deployments. The continued drawdown of forces from 
Iraq will help increase the supply of forces and lengthen dwell times 
at home.
    If confirmed, I would demand innovative solutions to reset and 
modernize equipment to address current and future conflicts to ensure 
our defense dollars are well spent in this effort. To accomplish this, 
the Army's requirements, contracting, procurements, and processes must 
be able to meet soldier requirements within current and future resource 
constraints. I would place a great deal of emphasis on each of these 
areas.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Secretary of the Army?
    Answer. I am not aware of any serious problems in the performance 
of the functions of the Secretary of the Army.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Should the Senate confirm me, I intend to engage in an 
ongoing process of consultation with the Secretary of Defense, Army 
leaders, others in DOD, and Congress to address any area of the 
Secretary of the Army's performance of functions that may require 
attention and pursue opportunities for improvement. As to a timetable, 
if confirmed I would strive to ensure that upon my departure from 
office, I would leave America's All-Volunteer Army force better 
trained, equipped, and organized.
    Question. If confirmed, what broad priorities will you establish?
    Answer. If confirmed, my focus would be to keep America's Army the 
best-trained, best-equipped, and best-led land force the world has ever 
seen. Since we are at war, my first priority would be ensuring that 
soldiers and units are well organized, trained, equipped, and ready for 
success in the current conflicts.
    A clear priority must be sustaining our Nation's quality, All-
Volunteer Force by providing the support our soldiers and families 
deserve, with a particular emphasis on health care programs, especially 
for wounded soldiers.
    Also, if confirmed, I would work to ensure that the Army continues 
to transform to meet the challenges of the 21st century. I would work 
to rebuild strategic depth and make sure the Army's organization, 
training, and modernization efforts can, on a continuous basis, provide 
land forces that are versatile enough to be successful across the full 
spectrum of operations.
                           acquisition issues
    Question. Many experts have acknowledged that DOD may have gone too 
far in reducing its acquisition work force, resulting in undermining of 
its ability to provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Department of the 
Army should take to address this problem?
    Answer. If confirmed, I would look to examine the size and age of 
the acquisition workforce and its impact on the oversight of 
acquisition programs today and in the future. The October 2007 ``Report 
of the Commission on Army Acquisition and Program Management in 
Expeditionary Operations,'' often referred to as the Gansler Commission 
Report, recommended an increase in the stature, quantity, and career 
development of military and civilian contracting personnel and 
recommended additional training and tools for overall contracting 
activities. It is my understanding that the Army is in the process of 
implementing these recommendations.
    Also, the National Defense Authorization Acts for Fiscal Years 2008 
and 2009 have enabled the Army to implement initiatives and programs 
that will assist in recruiting, hiring, developing, training, 
recognizing, and retaining its acquisition workforce. This flexibility 
is critical in the contracting arena, as well as program management, 
systems engineering, cost estimating, and several other areas. I 
support the rightsizing of the overall workforce to the mission.
    Question. Major defense acquisition programs in the Department of 
the Army and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. The short answer is yes. Without examining each program in 
detail, it is difficult to judge whether funding instability or other 
reasons cause some programs to experience high cost or schedule delays. 
I recognize that large funding changes often are made for what appear 
to be valid reasons, such as changes in force structure requirements or 
mission focus, and participation in combat operations.
    Question. What steps, if any, do you believe the Army should take 
to address funding and requirements instability?
    Answer. To address funding and requirements stability, the Army 
must increase the fidelity of cost estimates, avoid the too rapid 
adoption of immature technology, improve the quality of systems 
engineering, control growth in requirements, and, when appropriate, use 
incremental builds.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    Answer. Although I fundamentally agree with the Comptroller 
General's assessment, I note that threats cannot be predicted with 
certainty and programs therefore must respond to a broad range of 
possible situations. Accordingly, the Army is challenged to develop and 
field the most technologically advanced capabilities to its warfighters 
to keep pace with this high level of operations.
    Question. If so, what steps do you believe the Department of the 
Army should take to address these problems?
    Answer. I understand that DOD published a major revision to the 
instruction on the operation of the Defense Acquisition System in 
December 2008. That instruction places increased emphasis on knowledge-
based acquisition practices and delays the critical program initiation 
decision at Milestone B to provide for greater resolution on 
requirements, design, and costs. The Weapon System Acquisition Reform 
Act of 2009 reinforces the oversight and reporting process for major 
programs. It will take some time for the results of these actions to be 
seen in individual acquisition programs. If confirmed, I would insist 
on clarity and rigor in the oversight of major programs to ensure that 
the acquisition process supports the needs of the force and is a 
responsible steward of the resources available.
    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Army should take to improve 
the staffing, training, and management of its acquisition of services?
    Answer. If confirmed, I would direct an assessment of how the Amy 
acquires services, including organization, policy, and processes, to 
make sure we have an effective management structure. I would also 
ensure that the management of service acquisition was properly led, 
staffed, and resourced.
    Question. Do you agree that the Army should develop processes and 
systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. I agree the Army should have the processes and systems in 
place to analyze spending and enhance the overall management of service 
contracts. I do not have sufficient insight at this time into the 
capabilities of the current information management systems. If 
confirmed, I would support modifying these systems as required to 
conduct these analyses.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. DOD is by far the 
largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Army should take to ensure 
that its use of interagency contracts complies with applicable DOD 
requirements and is in the best interests of the Department of the 
Army?
    Answer. It is my understanding that the Office of Federal 
Procurement Policy, DOD, and the Army have issued new or revised 
policies, procedures, and guidance to address the problems the 
Inspector General identified. If confirmed, I would ensure that the 
Army's Procurement Management Review Team makes the assessment of 
compliance and effectiveness of policy and procedures an item of 
special interest.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade. Since the mid-1990s, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System and 
Modularity. Instability in funding, either as provided by DOD or 
Congress, has been cited by the Army and others as a principal cause of 
program instability. For the most part, however, the Army has benefited 
from broad DOD and Congressional support for its modernization and 
readiness programs even when problems with the technical progress and 
quality of management of those programs have been apparent--the Armed 
Reconnaissance Helicopter (ARH) is a recent example.
    What is your assessment, if any, of the Army's modernization 
record?
    Answer. The Army's modernization record clearly depicts the 
complexities of an Army in transition during wartime. I believe the 
Army must continue to adapt to a rapidly changing threat environment. 
If confirmed, I look forward to working with the Secretary of Defense 
and Congress to equip and modernize the force.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. Stable, predictable total obligation authority allows the 
Army to balance its needs, chart a course, and stick to it. If 
confirmed, I would work with the Secretary of Defense and Congress to 
arrive at that stable funding level and, subsequently, a stable 
modernization program.
    Question. What is your understanding and assessment of the Army's 
modernization investment strategy?
    Answer. Having watched this evolve over the past few years, I would 
offer that, by its very nature, the Army's modernization investment 
strategy is built on assessing the likelihood of evolving threats and 
planning future capabilities to mitigate those threats. It is an 
imprecise science, requires almost constant review and correction, and 
must balance investments in future development with improvements to 
today's equipment. If confirmed, I plan a thorough review of these 
investments.
    Question. In your view does the Army's modernization investment 
strategy appropriately or adequately address current and future 
capabilities that meet requirements for unconventional or irregular 
conflict?
    Answer. At this juncture it appears that the Army is making 
appropriate investments to counter unconventional and irregular 
threats. This includes investments in science and technology research 
and in an adaptable organizational structure in our labs, program 
offices, and headquarters staff that allow the Army to quickly address 
emerging threats on the battlefield. The key for me, if I am confirmed, 
is managing how the Army balances investments in current and future 
initiatives.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue in this regard?
    Answer. I do not have the detailed knowledge to make an accurate 
assessment at this time. If confirmed, I intend to fully review the 
Army's investment initiatives.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. I believe one of the strengths of the defense program is to 
specifically address affordability and the outyear projection of long-
term funding requirements. Those processes have been strengthened by 
initiatives within the Office of the Secretary of Defense and by 
Congress. If confirmed, I believe I would have the required visibility 
and management structure that would allow me to provide these judgments 
to Congress.
    Question. In your view, what trade-offs, if any, would most likely 
have to be taken should budgets fall below or costs grow above what is 
planned to fund the Army's modernization efforts?
    Answer. While I do not have sufficient insight into what actions 
might be required, any trade-offs must occur after all areas of risk 
are carefully considered in coordination with the Secretary of Defense 
and Congress.
                      army weapon system programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Future Combat System (as restructured).
    Answer. It is my understanding that the acquisition program for the 
Future Combat System has been canceled because of issues related to 
technology maturity and affordability. In its place, the Army has been 
directed to make the transition to an Army modernization plan 
consisting of a number of integrated acquisition programs: (1) Spin Out 
Early-Infantry Brigade Combat Team (BCT); (2) Follow-on BCT 
Modernization/Equipment for BCT Modernization; (3) Ground Tactical 
Network capability; and (4) a new platform for the Ground Combat 
Vehicle. I am not yet in a position to offer an informed assessment of 
these efforts
    Question. Stryker combat vehicle, including the Stryker mobile gun 
variant.
    Answer. I am not yet in a position to offer an informed assessment 
of the Stryker program, but I understand that Stryker variants have 
been in production since 2004 and that the Army has successfully used 
the system in Iraq and is preparing to deploy it to Afghanistan.
    Question. Joint Light Tactical Vehicle.
    Answer. Although I am not yet in a position to provide an informed 
assessment of the Joint Light Tactical Vehicle (JLTV), I understand 
that it is a relatively new joint Service developmental program, which 
consists of a family of vehicles with companion trailers capable of 
performing multiple mission roles. Based on the lessons of Iraq, JLTV 
requires a design that supports inherent and supplemental protection, 
scalable to mission.
    Question. Armed Reconnaissance Helicopter.
    Answer. It is my understanding that the Army has an enduring 
requirement for an armed aerial scout that was unaffected by the 
termination of the ARH program. I am not yet in a position to provide 
an informed assessment, but I understand that this latest effort is 
completing pretechnology development activities under the supervision 
of the Defense Acquisition Executive.
    Question. M1 Abrams tank modernization.
    Answer. The Abrams Tank has been an integral part of the Army's 
force structure for decades. I understand that the tank has encountered 
performance decrements during Operation Iraqi Freedom (OIF) that affect 
its operational performance and reliability, and that the Army has 
initiated a modernization strategy to maintain the tank's 
survivability, lethality, and maintainability through 2050. I am not 
yet in a position to provide an informed assessment of this effort.
    Question. M2 Bradley infantry fighting vehicle modernization.
    Answer. The Bradley vehicle has been an integral part of the Army's 
force structure for decades. I understand that the program has 
encountered performance decrements during OIF that affect the vehicle's 
operational performance and reliability, and that the Army has 
initiated modernization efforts to maintain the vehicle's 
survivability, lethality, and maintainability through 2050. I am not 
yet in a position to provide an informed assessment of this effort.
    Question. Warfighter Information Network-Tactical.
    Answer. While I am not yet in a position to provide an informed 
assessment of Warfighter Information Network-Tactical (WIN-T), my 
general understanding is that WIN-T is the Army's critical 
modernization effort for managing electronic information in the 
tactical environment. I understand that the WIN-T capabilities are 
built on proven government and commercial technology using voice, 
video, and data. This program, as I understand it, is configured into 
separate increments, each providing increasing capabilities measured in 
terms of capacity, speed, network management, and maneuverability.
    Question. Logistics Modernization Program.
    Answer. Although I am not yet in a position to provide an informed 
assessment of Logistics Modernization Program (LMP), I understand that 
this program is designed to support, replace, and modernize aging, 
obsolete, and increasingly costly automation systems used at the 
national logistics level. LMP employs a commercially based Enterprise 
Resource Planning software solution and provides a comprehensive, 
modernized logistics and finance capability across major business 
areas. I understand that, when fully implemented, LMP is intended to 
enhance the Army's logistics capabilities to manage inventories, 
process millions of transactions, and integrate with many critical DOD 
software systems.
    Question. Joint Tactical Radio System.
    Answer. While I am not yet in a position to provide an informed 
assessment of Joint Tactical Radio System, I understand that this 
program is part of the Army's and DOD's transformational and network 
modernization effort. I understand that the system will provide the 
fully mobile, flexible, dynamic radio networking capability needed to 
support a highly dispersed force over a noncontiguous area.
                mine resistant ambush protected vehicles
    Question. If confirmed, what would you propose should be the Army's 
long-term strategy for the utilization and sustainment of its large 
mine-resistant ambush-protected (MRAP) vehicle fleet?
    Answer. The MRAP was procured in response to a joint urgent 
operational need statement from Multi-National Corps-Iraq in June 2006. 
The initial intent was to replace all up-armored HMMWVs (UAH) in 
theater because those vehicles could not provide the required levels of 
protection, and previous modifications had reduced the vehicle's 
payload capacity to an unacceptable level. The urgent nature of this 
program resulted in the deferral of many steps associated with a 
traditional acquisition process in an effort to expedite fielding. If 
confirmed, I would work to determine the long-term strategy for the use 
and sustainment of the Army's fleet of MRAPs.
                            missile defense
    Question. DOD intends to transition a number of ballistic missile 
defense programs from the Missile Defense Agency (MDA) to the Army, 
including the Terminal High Altitude Area Defense (THAAD) system. The 
Army and the MDA have negotiated a Memorandum of Understanding 
concerning such transition.
    What is your understanding of the agreement between the Army and 
MDA on transition and transfer of missile defense systems from MDA to 
the Army?
    Answer. At present, I am not familiar with this agreement. If 
confirmed, I would become acquainted with its provisions and ensure 
that the Department meets its stated commitments.
    Question. What is your view of the appropriate role of the Army in 
funding, managing, operating, or maintaining missile defense programs, 
including in the areas of research, development, test, and evaluation; 
procurement; operation and maintenance; and military construction?
    Answer. At present, I am not familiar with the Army's specific role 
with respect to these programs. If confirmed, I would evaluate this 
issue.
    Question. If confirmed, what steps would you plan to take to ensure 
that the Army's approach and the MDA's approach are coordinated and 
integrated, so that the resulting capabilities are joint and 
interoperable?
    Answer. The Army and the MDA are collaborating under a memorandum 
of agreement to coordinate the development of complementary current and 
future battle command and control products in their respective mission 
areas. Although I am not yet familiar with the details of this 
agreement, if confirmed I would ensure that the Army's Acquisition 
Executive works closely with the MDA to maximize the jointness and 
interoperability between these systems.
    Question. Do you agree with Secretary Gates' decision to increase 
the focus on effective theater missile defenses to defend our forward 
deployed forces and allies against existing regional missile threats 
from nations like North Korea and Iran?
    Answer. Yes.
                                 space
    Question. The Army restructured its program executive office for 
air and missile defense to include Army space efforts, and issued an 
Army space policy.
    Are you satisfied that current DOD management structures adequately 
support Army objectives in space?
    Answer. I do not have detailed knowledge of DOD's management 
structures, but the Army depends heavily on space-based combat support. 
If confirmed, I would closely examine this issue.
    Question. Are you satisfied with the current level of effort in the 
Army related to space programs? Do you believe these efforts have the 
right focus?
    Answer. While I am not yet in a position to provide an informed 
assessment, I understand that the importance of space programs 
continues to increase across DOD, and the Army needs to keep pace to 
fully leverage capabilities and ensure that space systems are 
appropriately prioritized within both DOD and the Department of the 
Army.
    Question. The Army currently defines its space career field as a 
subset of the information technology career field.
    Do you believe the information technology career field structure is 
adequate to support Army space interests?
    Answer. If confirmed, I would need to examine this issue more 
closely. I understand that some believe to fully realize the potential 
of space and to adequately support the Army's space interest, space 
operations should be recognized as a unique career field and included 
in a space requirements/acquisition and National Aeronautics and Space 
Administration support subset.
    Question. Do you believe that the space career fields of the Army, 
Navy, and Air Force should be integrated?
    Answer. It is my understanding that each Service has unique and 
broad requirements in how space assets are used and personnel are 
managed. Total integration might be unrealistic because of specific 
Service needs and existing models for the development of Service 
personnel. However, integration and cross-fertilization can be 
accomplished through joint training, assignments, and exercises.
    Question. Does the Army plan to assign personnel to the new 
Operational Responsive Space Office?
    Answer. I do not have any knowledge of this matter.
                               modularity
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. The new modular BCT is supposed to have an increased 
capability to operate independently based upon increased and embedded 
combat support capabilities such as military intelligence, 
reconnaissance, and logistics. Although somewhat smaller in size, the 
new modular brigades are supposed to be just as, or more capable than 
the divisional brigades they replace because they will have a more 
capable mix of equipment--such as advanced communications and 
surveillance equipment. To date, the Army has established over 80 
percent of its planned modular units, however, estimates on how long it 
will take to fully equip this force as required by its design has 
slipped from 2011 to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. It is my understanding that the Army's modular 
transformation was designed to create a more expeditionary capable 
force that will address the full spectrum of missions emerging from a 
post-Cold War strategy. I have been advised that the Army continuously 
addresses changes to its unit designs by incorporating lessons learned 
and changes in technology that keep the formations relevant and 
effective. If confirmed, I look forward to assessing the strategy.
    Question. In your view, what are the greatest challenges in 
realizing the transformation of the Army to the modular design?
    Answer. I have been advised that the Army faces two major 
challenges related to transformation: restoring balance to a force 
experiencing the cumulative effects of 8 years of war and setting 
conditions for the future to fulfill the Army's strategic role as an 
integral part of the joint force.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy?
    Answer. The Army Campaign Plan and goals for modularity must be 
consistent with Department strategy for the current and future 
environment in an era of persistent conflict. While I have no 
recommendations for changes at this time, I would closely examine this 
issue if confirmed.
    Question. What is your understanding and assessment of the 
employment and performance of modular combat brigades and supporting 
units in Operations Iraqi Freedom and Enduring Freedom?
    Answer. Modular brigade level formations have provided a solid base 
of adaptation to meet a wide range of requirements for specific 
missions across the spectrum of conflict. Army soldiers and leaders are 
performing superbly in both operations with these enhanced 
capabilities, and modular organizations augmented and trained for their 
assigned missions in each theater. I believe they are the right 
organization in terms of leadership and mission functionality to rotate 
through the Army's Force Generation Model and into operations in Iraq, 
Afghanistan, and elsewhere as required.
    Question. What changes, if any, would you propose to the modular 
design, the mix of combat and supporting brigades, or modular unit 
employment to improve performance or reduce risk?
    Answer. At present, I am not sufficiently knowledgeable to propose 
changes to the current modular design. I understand that the Army 
continues to review its force mix to ensure it meets combatant 
commanders' needs in the current and foreseeable operational 
environments.
                        active-duty end strength
    Question. The Army has increased its Active Duty end strength to 
meet current and future operational requirements. The Army had planned 
to increase its end strength to 547,400 by 2010, but has already 
achieved this goal in 2009.
    In your view, what is the appropriate Army Active Duty end strength 
needed to meet the demand for deployed forces, increase nondeployed 
readiness, build strategic depth, and relieve stress on soldiers and 
their families?
    Answer. The Secretary of Defense's announcement to authorize a 
temporary end-strength increase should enable the Army to improve the 
readiness of its units throughout the Army Force Generation process. If 
confirmed, I will work with the Office of the Secretary of Defense, the 
Joint Staff, and the Army Commands to determine the appropriate balance 
of end strength and capabilities.
    Question. If Army end strength is projected to be above 547,400 in 
fiscal years 2009 or 2010, how would you propose, if confirmed, to fund 
the additional end strength above levels budgeted for in fiscal year 
2010?
    Answer. Secretary Gates recently announced a temporary increase in 
the size of the Army by 22,000 soldiers, and indicated that this money 
would be taken from current DOD funding levels for fiscal years 2009 
and 2010. If confirmed, I would work closely with the Assistant 
Secretary of the Army (Financial Management and Comptroller) to 
identify appropriate funding sources, and I would seek assistance from 
the Secretary of Defense and Congress, as necessary, to ensure an 
appropriate level of funding.
    Question. Do you believe that the Army's Active Duty end strength 
should rise by 30,000 in the 2010 to 2012 timeframe and beyond?
    Answer. The size of the Army is predicated on its ability to meet 
the strategic requirements of our Nation. That end strength should 
facilitate a rotation cycle that can meet operational requirements 
within the Department's force rotation goals and sustain the All-
Volunteer Force. I understand that the Army plans to achieve a rotation 
ratio for the Active component of 1:2 between the amount of time 
deployed to the amount of time not deployed during fiscal year 2011, 
and that its objective for the Active component is to achieve a 1:3 
rotation ratio.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continues its steep upward growth and is becoming 
an ever increasing portion of the DOD budget.
    If confirmed, what actions would you take to control the rise in 
the Army's personnel costs and entitlement spending?
    Answer. It is my understanding that the military departments have 
limited authority to control overall personnel costs and entitlement 
spending. If confirmed, I would ensure adequate oversight through 
processes, procedures, and audit reviews to provide early warning 
regarding the costs and effects of current and proposed military pays 
or benefits.
    Question. If confirmed, what actions would you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. If confirmed, I would work closely within the Army and DOD 
to budget accurately, and then would monitor budget execution, end 
strength, and the use of incentives.
                            lessons learned
    Question. What do you believe are the major lessons that the 
Department of the Army has and should have learned from Operation 
Enduring Freedom (OEF) and OIF regarding its title 10, U.S.C., 
responsibilities for manning, training, and equipping the force?
    Answer. In terms of manning, I believe that 8 years of sustained 
combat operations have taken their toll on soldiers. Increases in 
nondeployable rates require deploying units to continue to be 
overfilled at the expense of readiness for the rest of the Army. In 
terms of training, a major lesson is that versatile and agile units 
that are fundamentally competent can adapt to any threat from across 
the spectrum of conflict. Also, the rapid incorporation of operational 
lessons into the training of next-to-deploy forces at training centers, 
mobilization stations, and home stations ensures that units are ready. 
In terms of equipping, the Army must constantly strive for advance 
knowledge of emerging requirements and then promptly engage the 
acquisition and industrial communities to find solutions as early as 
possible.
    Question. If confirmed, which of these lessons, if any, would you 
address as a matter of urgent priority?
    Answer. I have been advised that the most urgent matter to address 
is the rising nondeployable population and its effect on manning. If 
confirmed, I would also continue to explore ways to anticipate emerging 
equipping requirements and satisfy them as quickly as possible.
                      private security contractors
    Question. The Special Inspector General for Iraq Reconstruction 
(SIGIR) recently reported that Federal agencies, including DOD, have 
spent more than $5 billion for private security contractors in Iraq 
since 2003. Over this period, there have been numerous reports of 
abuses by private security contractors, including allegations of 
contractors shooting recklessly at civilians as they have driven down 
the streets of Baghdad and other Iraqi cities. In September 2007, 
employees of Blackwater allegedly opened fire on Iraqis at Nisour 
Square in downtown Baghdad, killing more than a dozen Iraqis and 
wounding many more.
    Do you believe the Army should rely upon contractors to perform 
security functions that may reasonably be expected to require the use 
of deadly force in highly hazardous public areas in an area of combat 
operations?
    Answer. In principle, no. However U.S. forces currently rely on 
contractors to ``free'' manpower for accomplishing missions focused on 
campaign objectives. Requiring uniformed forces to meet all 
requirements for security would divert a significant portion of a 
commander's forces from planning and controlling combat operations. 
Contractor performance of security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations may constitute inherently 
governmental functions and must be avoided
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq?
    Answer. I tend to agree that some near-term damage may have 
occurred. If confirmed, I would work to improve oversight of private 
security contractors through implementation of a better automated 
tracking system for contractor personnel. In addition, I would oversee 
the Army's implementation of the interim final rule recently 
promulgated in the Code of Federal Regulations. That rule establishes 
policy, assigns responsibilities, and provides procedures for the 
selection, accountability, training, equipping, and conduct of 
personnel performing private security functions under a covered 
contract.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. If confirmed, I would ensure that the Army complies with 
current mandates to reduce reliance on private security contractors to 
the greatest extent practicable and would explore initiatives to help 
ensure accountability.
    Question. How do you believe the ongoing operations of private 
security contractors in Iraq are likely to be affected by the new 
Status of Forces Agreement between the United States and Iraq?
    Answer. The new Status of Forces Agreement no longer affords 
immunity to contractors supporting the United States in Iraq. This 
change would most likely affect the use of private security contractors 
who are U.S. nationals but not local nationals.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I have been advised that the act was intended to address 
the jurisdictional gap in U.S. law regarding criminal sanctions, as 
applied to civilians employed by or accompanying the Armed Forces 
outside the United States, members of the Armed Forces, and former 
members of the Armed Forces, including their dependents. I understand 
that legislation has been proposed in the past that would expand the 
act to cover individuals employed under a contract (or subcontract at 
any tier) awarded by any department or agency of the United States 
where the work under such contract is carried out in an area, or in 
close proximity to an area (as designated by DOD) where the Armed 
Forces are conducting contingency operations. If confirmed, I would 
study this matter in coordination with The General Counsel of the 
Department of the Army and the Judge Advocate General and assess 
whether this or any other change to the act may be appropriate
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice (UCMJ) to employees of private 
security contractors operating in an area of combat operations?
    Answer. I support the position that civilians serving with or 
accompanying our Armed Forces overseas who commit crimes should be held 
accountable as appropriate. The UCMJ provides commanders with the tools 
necessary to maintain good order, discipline, and the morale, welfare, 
and safety of all those under their jurisdiction during military 
operations. Because contractor misconduct may undermine good order and 
discipline, discredit the Army, or remain unaddressed absent the 
exercise of jurisdiction, Congress extended UCMJ jurisdiction to 
contractors. In turn, the Secretary of Defense published guidance on 
the prudent exercise of such jurisdiction. The guidance ensures that 
the Department of Justice and DOD each play an appropriate role in 
resolving whether, and under which system, jurisdiction might be better 
exercised in each potential case. OMB Circular A-76 defines 
``inherently governmental functions'' to include ``discretionary 
functions'' that could ``significantly affect the life, liberty, or 
property of private persons''
    Question. In your view, is the performance of security functions 
that may reasonably be expected to require the use of deadly force in 
highly hazardous public areas in an area of combat operations an 
inherently governmental function?
    Answer. I have been advised that DOD Instruction 3020.41 
(Contractor Personnel Authorized to Accompany the Armed Forces) 
prohibits the use of contract security services to guard U.S. or 
coalition military supply routes, military facilities, military 
personnel, or military property in contingency operations where major 
combat operations are ongoing or imminent, except as the geographic 
combatant commander specifically authorizes. When either of those two 
conditions have been met, the performance of security functions that 
may reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations is not 
necessarily an inherently governmental function. I understand, however, 
that support services that require substantial discretion or prudent 
judgment are inherently governmental, and that the likelihood an 
individual will be required to resort to force, especially deadly 
force, and the degree to which an individual may be required to 
exercise force in public are important factors to consider in assessing 
whether a particular security mission is inherently governmental. 
Therefore, if I am confirmed, I intend to study this issue in greater 
depth to ensure that the Army's assessment regarding this issue is 
fully considered in the ongoing review of DOD Instruction 3020.41.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. I am familiar with OMB Circular A-76 and with Section 1057 
of the National Defense Authorization Act for Fiscal Year 2009, which 
reflects the position of Congress regarding the interrogation of 
detainees by contractor personnel. I understand that, under existing 
DOD and Army policies, the interrogation of enemy prisoners of war and 
other detainees is not considered an inherently governmental function 
as long as it is conducted under the supervision of government 
personnel.
    Question. Do you believe that the Army fully considered these 
issues before deciding which functions should be assigned to private 
contractors in Iraq?
    Answer. I believe the Army is committed to adhering to law, 
regulation, and policy, but I am unaware of precisely what factors the 
Army considered in making the decisions referred to.
    Question. Do you see a need for a comprehensive reevaluation of 
these issues now?
    Answer. I fully support the principles and policies set forth in 
President Obama's memorandum of March 4, 2009 which directs the Office 
of Management and Budget, in coordination with the Secretary of 
Defense, among others, to develop and issue governmentwide guidance to 
assist executive branch agencies in reviewing the propriety of existing 
contracts and to formulate corrective action when appropriate. I 
believe any such review must include an appraisal of inherently 
governmental and other critical government functions and how they are 
performed.
                    iraq and afghanistan deployments
    Question. Many soldiers are on their third and some their fourth 
major deployment to Iraq or Afghanistan. In 2007, in order to support 
the surge of forces to Iraq, unit deployments were extended to 15 
months and dwell time in some cases less than 12 months. Beginning in 
August 2008 DOD policy has been to limit deployments for Active 
component soldiers and mobilization of Reserve component soldiers to 
not longer than 12 months.
    What is your assessment of the impact of multiple deployments of 
troops to Afghanistan and Iraq on retention, particularly among young 
enlisted and officer personnel after their initial active duty 
obligated service has been completed?
    Answer. The generation of young commissioned and noncommissioned 
officers now serving in the Army has known only conflict. These 
soldiers well know the challenges the Army faces and continue to serve 
with distinction in a very fluid and demanding environment. The Army 
has advised me that multiple deployments to Afghanistan and Iraq are 
not adversely affecting enlisted retention, and have not resulted in 
the increased attrition of midgrade officers over the past several 
years.
    I have been informed that Army officer shortages stem from force 
structure growth undertaken to support conversion to more self-
sufficient, modular combat formations and to provide additional 
capabilities to meet the emerging threats in counterinsurgency warfare. 
I am encouraged that the measures the Army has taken to resolve 
shortages in midgrade officers, including increased accessions (over 
5,000 by the end of fiscal year 2009); increasing Reserve component 
calls to Active Duty; using interservice transfers, higher promotion 
rates, below the zone promotions, and earlier promotion pin-on point to 
a path of resolving this challenge.
    Question. What are the indicators of stress on the force, and what 
do these indicators tell you about that level of stress currently? In 
addition to any other stress indicators that you address, please 
discuss suicide and divorce rates, drug and alcohol abuse, absences 
without leave (AWOLs), and rates of indiscipline.
    Answer. In this period of high operational and personnel tempo, 
Army leaders must maintain constant awareness of the physical and 
mental condition of their soldiers and families and constructively 
address concerns as soon as they come to light. It is my understanding 
that reenlistment rates are high, one indication that soldier morale 
remains strong. I am also informed that Army discipline and misconduct 
rates, including desertion, absence without leave, domestic violence, 
and courts-martial, have remained steady or declined in the past year. 
However, I am advised that other indicators of stress on the force, 
such as substance abuse and divorce, have increased. Most notably, the 
significant increase in the number of soldier suicides is of utmost 
concern. If confirmed, I would ensure that soldiers and families are 
provided with multidisciplinary solutions directed at mitigating risk 
behaviors and enhancing the fitness and resilience of soldiers and 
families.
    Question. For how long do you believe these levels of commitments 
can continue before there will be significant adverse consequences for 
the Army?
    Answer. At this time, I do not have the information or particular 
insights to determine how long the Army can sustain the current level 
of commitment without incurring significant adverse consequences. The 
Chief of Staff of the Army, General Casey, has stated that the Army is 
``out of balance.''
    Question. What is your understanding of this statement and what do 
you think can or should be done to correct that imbalance?
    Answer. As I understand it, General Casey has publicly defined 
``balance'' as the ability to achieve a 1:2 deployment-to-dwell (time 
at home station) ratio for Active component soldiers and a 1:4 
mobilization-to-demobilization ratio for Reserve component soldiers. 
The two ways to improve balance are an increased deployable force 
structure or decreased demands. The Army has grown to its new end 
strength of 547,000, and Secretary Gates will temporarily add 22,000 
additional soldiers. The increased end strength, along with a future 
reduction in demand for forces, is the key to regaining balance.
              reserve components as an operational reserve
    Question. What is your understanding and assessment of the Army's 
Reserve components as an Operational Reserve, as opposed to its 
longstanding traditional role as a Strategic Reserve?
    Answer. The Army's Reserve components have transformed and adapted 
to today's operational environment of enduring conflict along with the 
Active Force. The Army's Reserve components bring a mix of skills and 
capabilities that have strengthened the force, and they are an 
essential and critical component of the current force generation 
system, which provides the right mix of trained and ready forces to the 
fight.
    Question. In your view, what are the major challenges to 
transforming the Army Reserve and Army National Guard into a relevant 
and capable Operational Reserve?
    Answer. It appears that resources and institutional support are the 
major challenges. Resources are necessary to ensure a continuously 
ready Reserve component force, such as increased training days and 
opportunities, recruiting and retention incentives, incentives for 
employers, earlier access to medical and dental readiness, increased 
installation and facility support, increased premobilization training 
support, and validation.
    Question. In your view, how will predictable cycles of 1 year 
mobilized to 5 years at home, affect the viability and sustainability 
of the All-Volunteer Reserve Force?
    Answer. I believe predictable cycles provide dwell time for the 
soldiers to maintain their civilian careers and predictability for 
soldiers, families, and employers for future deployments. This 
predictability also facilitates better training and requirements 
planning to prepare for future missions, thus enhancing unit viability.
    Question. If confirmed, what actions, if any, would you propose to 
ensure the most rapid, efficient, and effective transformation of the 
Army's Reserve components into an Operational Reserve?
    Answer. I do not have sufficient information at this time to make 
specific proposals. However, it is clear the Army needs to ensure the 
rapid transformation of the National Guard and Reserve to an 
operational force in the same fashion as the Active-Duty component. 
This could include a wide range of initiatives such as pay incentives 
for citizen soldiers and families, generation of sufficient forces, 
progressive equipment strategies, and continuum of service that allows 
soldiers to seamlessly transition duty statuses.
    Question. In recent years, Reserve Force management policies and 
systems have been characterized as ``inefficient and rigid'' and 
readiness levels have been adversely affected by mobilization 
timelines, equipment shortages, cross leveling, and reset policies.
    What is your understanding and assessment of the sufficiency of 
current Reserve Force management policies?
    Answer. It is my understanding that Reserve Force management 
policies and systems have been under continuous review throughout the 
transformation of the Reserve component to an operational force and 
have been addressed when found to be inefficient or rigid.
    Question. In your view, should DOD assign homeland security defense 
or any other global or domestic support missions exclusively to the 
Reserve?
    Answer. DOD maintains a wide range of capabilities that may be 
called upon in times of catastrophic events that exceed the 
capabilities of the States and appropriate Federal agencies. However, 
no single Service or Reserve component embodies the wide range of 
capabilities often required to support a catastrophic event. The 
Department must maintain a Total Force approach as part of an 
interagency team to ensure that it can provide the most effective and 
timely response with the ability to surge large follow-on forces in 
support of a global or domestic emergency. This Total Force approach 
requires all Active and Reserve components for a truly complete 
response.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness monitoring, errors 
caused by antiquated pay systems, limited transition assistance 
programs upon demobilization, and lack of access to members of the 
Individual Ready Reserve. Reserve force management policies and systems 
have been characterized in the past as ``inefficient and rigid'' and 
readiness levels have been adversely affected by equipment stay-behind, 
cross-leveling, and reset policies.
    What is your assessment of advances made in improving Army Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. I have been informed that Reserve and National Guard 
soldiers, their families, and their employers now receive more advanced 
notice. The mobilization process has been streamlined significantly. It 
appears the Army has made significant strides to reimburse those 
soldiers who need travel advances. The annual periodic health 
assessment replaced the 5-year physical and, as a result, Reserve and 
National Guard soldiers are screened more frequently and diagnosed 
earlier. The added screening and treatment of dental deficiencies is 
also a positive advancement for Reserve component soldiers in a 
premobilization status.
    Challenges still exist. Two examples are greater improvements to 
the medical care for Reserve and National Guard soldiers, and sourcing 
and notifying soldiers of deployment even earlier where possible.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. Clearly, the transformation of the Army National Guard and 
Army Reserve from a strategic to an operational Reserve has had the 
largest and most enduring impact, and it has fundamentally changed the 
contract between the Army and the soldier in terms of what is expected 
from them and, frankly, who joins. The Army cannot execute its mission 
of prompt and sustained land combat absent a substantial contribution 
from the Reserve component across the full spectrum of conflict. If 
confirmed, I would continue this necessary transformation.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. The current laws seem sufficiently adequate and flexible to 
provide Reserve and National Guard forces for the fight. We appear to 
possess the necessary statutory authorities to meet the needs of the 
force, but mobilizing citizen soldiers is a solemn responsibility and 
should not be undertaken lightly. If confirmed, I would like to find 
efficiencies to make this process smoother and faster to give soldiers 
the predictability they deserve.
    Question. Do you agree that National Guard and Reserve personnel 
should be mobilized to serve in Afghanistan in lieu of civilians?
    Answer. The solution to Afghanistan is not solely military and 
therefore cannot be achieved by the U.S. military alone. The problems 
that the Afghan Government and its people face will require the 
expertise and all elements of national power. Using interagency and 
coalition responses is essential to success in Afghanistan. Mobilizing 
the U.S. Government for this task takes time, and it is possible that 
the military may be asked to shoulder the burden initially. The long-
range solution is increased interagency capability in all elements and 
instruments of national power.
                        individual ready reserve
    Question. DOD established a policy in 2005 mandating the discharge 
of officers in the Individual Ready Reserve (IRR) who are beyond their 
military service obligations (MSO) unless the officer positively elects 
to remain in the IRR. Meanwhile, the Commission on the National Guard 
and Reserves has found that accessing the IRR as a viable source of 
manpower for the war has been problematic, and that using the IRR as a 
solution for unit manning is a failed concept.
    What are your views on the proper role of the IRR in Army force 
management planning?
    Answer. While the IRR is an important source of trained manpower to 
support Army missions across the spectrum of military requirements, I 
believe the mobilization of IRR soldiers should be one of the last 
options. Not all IRR mobilizations have been involuntary; a number of 
IRR members have volunteered to serve on active duty. The IRR has been 
a valuable asset, primarily to fulfill requirements within Army 
National Guard and Army Reserve units.
    Question. If confirmed, what changes, if any, do you foresee making 
to the Army's IRR recall policy?
    Answer. I do not have detailed knowledge of the Army's IRR recall 
policy but, as stated previously, any recall of IRR soldiers should be 
one of the last options considered.
    Question. What are your views about policies affecting continued 
service by officer and enlisted personnel in the Reserve components who 
have fulfilled their MSO?
    Answer. Officers who have fulfilled their MSO and have not taken 
action to remain in the IRR are advised of the requirement to elect 
retention past their MSO; transfer to the retired Reserve, if they are 
qualified for retired pay; or be discharged from the military.
    Question. In your view, should members of the Reserve components 
who are deployed when they reach the end of their military service 
obligation be treated differently?
    Answer. Current mobilization policy ensures that soldiers have 
enough remaining MSO to serve their full mobilization if called on. 
Reserve soldiers should not be treated any differently than soldiers in 
other components.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to Active Duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the Army's decision on that request?
    Answer. I do not have sufficient information at this time to make 
an assessment
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Force?
    Answer. The IRR is extremely valuable to the force. The IRR 
provides individual replacements for deploying units and soldiers to 
support short-term missions throughout the Army. The IRR maintains its 
connection with the Army and its availability to support Army missions. 
Thousands of IRR soldiers have mobilized to theater in support of 
current operations. These soldiers have served in all ranks and 
military occupational skills, including doctors, aviators, and 
linguists.
 medical and dental readiness of army national guard and army reserve 
                               personnel
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the Committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. If confirmed I would assess the effectiveness of reporting 
on the medical and dental readiness and evaluate the need for policy 
changes and increased oversight.
    Question. How would you improve upon the Army's ability to produce 
a healthy and fit Reserve component?
    Answer. I am advised that the Army has comprised a 
multidisciplinary task force to address and promote comprehensive 
soldier fitness across all components. If confirmed, I look forward to 
learning more about the comprehensive soldier fitness program, 
particularly as it applies to the Reserve component, and working with 
leaders across the Army to implement it.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in 2006 and 2007, 
recommendations by the Commission on the National Guard and Reserves 
submitted on March, 1, 2007, and the Department's response to these 
calls for change are all currently under consideration.
    What is your assessment of the effect, if any, of increasing the 
grade of the Chief of the National Guard Bureau to General (O-10)?
    Answer. The National Defense Authorization Act for Fiscal Year 2008 
prescribed the appointment of the Chief, National Guard Bureau to serve 
in the grade of general. The position of the Chief is one of 
significant responsibility, requiring a level of operational 
experience, professional military education, and demonstrated expertise 
in both national and homeland defense matters. The Chief's service in 
the grade of general reflects the diversity and complexity of his 
duties. In addition to exercising responsibility for the organization 
and operations of the National Guard, the Chief serves as a principal 
advisor to the Secretary of Defense on matters involving non-
Federalized National Guard forces and other matters, and as the 
principal adviser to the Secretary of the Army, the Chief of Staff of 
the Army, the Secretary of the Air Force, and the Chief of Staff of the 
Air Force, on matters relating to the National Guard, the Army National 
Guard of the United States, and the Air National Guard of the United 
States.
    Question. What is your understanding of the role and authority of 
the Director of the Army National Guard?
    Answer. The Director, Army National Guard assists the Chief of the 
National Guard Bureau in carrying out the functions of the Bureau as 
they relate to the Department of the Army. Specifically, the Director 
of the Army National Guard guides the formulation, development, and 
implementation of programs and policies affecting the Army National 
Guard, a force of more than 358,000 soldiers dispersed across the 54 
States and Territories, and the District of Columbia.
    Question. In your view, should the Director be ``dual hatted'' as a 
Deputy Chief of Staff of the Army?
    Answer. I do not have sufficient information at this time to make 
that determination. If confirmed, I would carefully consider any 
proposals to modify the title, functions, or authorities of the 
Director of the Army Guard.
    Question. What is your understanding and assessment of changes in 
the global and domestic roles and mission of the Army National Guard 
and the National Guard Bureau?
    Answer. The Army National Guard is a critical element of our 
Nation's total force. The Army National Guard has historically served 
as a ``first responder'' in State contingencies and national 
emergencies, while simultaneously meeting its operational commitments 
in support of overseas contingency operations. Since 2001, the National 
Guard Bureau has played an increased role in coordinating emergency 
relief and response efforts at the local, State, and national levels. 
It is a testament to the inherent flexibility of the current 
organization of the Army National Guard and the National Guard Bureau 
that not one mission has been unexecuted in this environment of high-
demand, dual-purpose requirements. I have every reason to expect this 
extraordinary performance to continue.
    Question. What is your understanding and assessment of the Army's 
commitment to fully fund 100 percent of National Guard equipment 
requirements? In your view, do Army processes for planning, 
programming, and budgeting sufficiently address the requirements of the 
National Guard?
    Answer. The recognition of the critical role of its Reserve 
components, both Army Reserve and National Guard, is evident by the 
increased investment funding in both components. Budget requests 
continue to provide the National Guard and Reserve with equipment to 
both modernize and fill ``holes.'' Additionally, as part of a larger 
DOD program, efforts are underway in the Army to further increase the 
visibility and transparency of funding programmed for Army National 
Guard equipment.
    Question. If confirmed, how would you ensure that the resourcing 
needs of the Army National Guard are fully considered and resourced 
through the Army budget? In your view, what is the appropriate role for 
the Chief of the National Guard Bureau in this regard?
    Answer. If confirmed, I would ensure that the Army National Guard 
remains synchronized with the Army's requirement development and 
resourcing process, and that the Guard's needs are fully considered as 
part of the Army's resourcing strategy.
    In regards to the role of the Chief of the National Guard Bureau as 
the principal advisor to the Secretary of Defense, through the Chairman 
of the Joint Chiefs of Staff, I would seek his advice on key National 
Guard programs and challenges.
                         equipment repair/reset
    Question. Congress has provided the Army with approximately $17 
billion per year to cover the costs to repair and replace equipment 
worn out by combat operations and prepare forces for rotations in 
support of OIF/OEF.
    In your view, is this level of funding sufficient to not only 
prepare Army forces for OIF/OEF but to also improve the readiness of 
non-deployed forces for other potential contingencies?
    Answer. I do not have sufficient information at this time to make 
that level of recommendation.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. It is my understanding that all the Army's maintenance 
depots are currently operating at a level necessary to meet required 
workload, but capacity exists to assume an additional workload. The 
depots' current production levels are based on the rate of return of 
equipment from theater and the Army's need to equip units for training 
and deployment. It is my understanding that the depots can increase 
production if the rate of equipment return accelerates, and that the 
Army constantly evaluates depot production and adjusts it to meet 
current and anticipated demand.
    Question. What additional steps, if any, do you believe should be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. I do not have sufficient information at this time to make 
that level of recommendation.
    Question. What impact do you believe the decision to send 
additional Army forces to Afghanistan is likely to have on equipment 
available for continued operations in Iraq and for non deployed unit 
training at home?
    Answer. I do not have sufficient information at this time to make 
that level of decision.
                      army science and technology
    Question. What do you see as the role that Army science and 
technology programs would play in continuing to develop capabilities 
for current and future Army systems?
    Answer. The Army's science and technology investment strategy 
should be shaped to foster innovation and accelerate/mature technology 
to enable future force capabilities while exploiting opportunities to 
rapidly transition technology to the current force. The program should 
retain the flexibility to be responsive to unforeseen needs identified 
through current operations. Insights into technology that can enable 
capabilities can also provide building blocks and interim technology 
goals to assist in increasing unit capabilities over time.
    Question. What in your view have been the greatest contributions of 
Army science and technology programs to current operations?
    Answer. In my view, the most significant contribution the Army 
science and technology community has offered to current operations is 
its technical expertise coupled with a deep understanding of warfighter 
needs. This knowledge enables the community to respond to emerging 
theater needs and rapidly transform technology into warfighter 
capabilities. It is the capability of the Army's science and 
engineering workforce that has enabled the rapid development and 
deployment of lightweight and adaptable armor solutions that address 
the emerging threats for platforms such as the up-armored HMMWV and the 
MRAP. It is also my understanding that the Army's science and 
technology community has successfully transitioned other equipment, 
such as electronic countermeasures to provide jamming capabilities, 
base protection technologies to protect soldiers while in forward 
operating bases, and a variety of sensors and situational awareness 
enablers that have been critical to soldiers' efforts in theater.
    Question. What metrics would you use, if confirmed, to judge the 
value and the investment level in Army science and technology programs?
    Answer. If confirmed, the metrics I would use to judge the value 
and investment level in Army science and technology programs would 
include the transitions of technology to the warfighter, adoption of 
technology into acquisition programs, and alignment of technology 
development to warfighter needs.
  army laboratories and research, development, and engineering centers
    Question. What role should Army laboratories play in supporting 
current operations and in developing new capabilities to support Army 
missions?
    Answer. Army laboratories are the platforms for developing the 
advances in science and technology that are benefiting the warfighter, 
and as such must continue to play a major role in supporting current 
operations with the best capabilities available.
    Question. If confirmed, how would you ensure that the Army 
laboratories and R&D centers have the highest quality workforce, 
laboratory infrastructure, resources, and management, so that they can 
continue to support deployed warfighters and develop next generation 
capabilities?
    Answer. If confirmed, I would encourage the laboratories to take 
advantage of the authorities they currently have in regard to 
infrastructure and to work with the Office of the Secretary of Defense 
in its current efforts to expand these authorities. Maintaining the 
current level of resources for all the laboratories and embracing best 
practices in regard to management would be a high priority.
                    army test and evaluation efforts
    Question. The Army's test and evaluation budget has not been 
certified as adequate by the Director of the Test Resource Management 
Center (TRMC) for fiscal year 2010. This is after a conditional 
certification received in fiscal year 2009. TRMC identified a shortfall 
of over $25 million for investments in test and evaluation range 
sustainment, operations, and modernization.
    If confirmed, how will you address this shortfall?
    Answer. While I am not yet familiar with the specific concerns 
raised by the TRMC, I believe it is essential that the Department's 
test and evaluation infrastructure is adequately resourced.
    Question. How would you ensure that the Army's test and evaluation 
infrastructure is robust enough to ensure that new systems and 
technologies are tested to verify their combat effectiveness and 
suitability?
    Answer. If confirmed, I would become more familiar with the details 
of this requirement and ensure that future Army program and budget 
submissions provide an appropriate level of funding, consistent with 
competing demands on Departmental resources.
                  army information technology programs
    Question. What major improvements would you like to see made in the 
Army's development and deployment of major information technology (IT) 
systems?
    Answer. If confirmed, I would work to quickly leverage emerging 
technologies to meet security and operational capabilities. While this 
is an area I have not focused on in my work on the House Armed Services 
Committee, there are areas for improving the Army's development and 
deployment of major information technology systems. These include 
designing and adopting policies that reinforce management at the 
capability portfolio level, encouraging the identification and rapid 
development of new technologies, and improving the synchronization of 
acquisition management policies and processes. If confirmed, I would 
ensure that Army IT systems provide warfighters and business managers 
with leading edge capabilities that efficiently enhance the 
effectiveness and efficiency of the force.
    Question. What is your understanding of the Army's plan to adopt 
and deploy the Defense Integrated Military Human Resources System 
(DIMHRS)? What are the major issues you feel need to be addressed in 
that process?
    Answer. I have not been informed of the specific status of the 
Army's implementation of DIMHRS. If confirmed, I would carefully review 
the implementation plan and associated milestones. If my review 
identifies any weakness, I would make appropriate recommendations, 
after cross-Service coordination, to the responsible officials.
                         housing privatization
    Question. DOD has been engaged in the privatization of many of its 
support functions. Among the most significant privatization efforts is 
military family housing units and utility systems.
    In your view, what challenges does the Army face in implementing 
housing privatization and, if confirmed, how would you propose 
addressing those challenges?
    Answer. It is my understanding that three key challenges face the 
Army in the continued implementation of housing privatization. First, 
the Army faces risk related to the capital market, both for projects 
that have obtained financing and those for upcoming projects. To 
address this risk, the Army must continue to monitor the capital 
markets and evaluate opportunities associated with fluctuating interest 
rates, credit terms, and risk parameters. Second, the Army faces risk 
of underperformance by a private sector partner. To mitigate this risk, 
the Army should continue to monitor the financial health of each 
partner and the operational metrics established in the Army's portfolio 
and asset management program. The third risk facing Army housing 
privatization is that faced by any real estate investor: namely, that 
expected occupancy, financial performance, or development targets will 
not be met. To mitigate and address this risk, the Army must continue 
to implement the best practices from private sector investment 
management to oversee existing housing privatization projects. 
Monitoring the key performance metrics associated with typical real 
estate transactions is critical to identifying and addressing potential 
issues.
    Question. What adjustments, if any, would you anticipate as a 
result of the current lending environment?
    Answer. The terms and conditions of lending are growing more 
restrictive. Projects are now required to set aside more cash in 
reserve for debt payments, and rating agencies are downgrading the 
credit ratings on existing debt, which has affected the appeal of 
projects to investors. Many investors who have historically purchased 
military housing privatization debt are saddled by financial challenges 
that have hindered their ability to invest. If confirmed, I would 
address these issues by ensuring that the Army continues to use experts 
to monitor how the financial markets could affect new and existing 
transactions. Additionally, I would direct that a team of senior Army 
leaders evaluate the current roster of proposed projects, both new and 
expansion, to determine what adjustments are necessary to ensure 
project feasibility.
    Question. What actions would you propose, if any, to accommodate 
installations where there are housing shortfalls beyond the ability of 
the current privatization agreement?
    Answer. I understand that DOD and the Army's longstanding position 
is to rely first on housing in the local community. Where there are 
shortfalls locally, the Army has sought to educate community and 
business leaders on its housing requirements and to encourage 
development to meet those requirements. I have been informed that the 
Army has already held several industry forums in local communities for 
Fort Drum, Fort Riley, and Fort Bliss. Further, the Army has also used 
its domestic Army family housing lease authority as a bridging tactic 
until the local community is able to meet the Army's family housing 
requirements.
    Question. What are your views regarding barracks privatization?
    Answer. I do not have sufficient information at this time to make 
that level of recommendation. If confirmed, barracks privatization is 
an issue I hope to be able to explore in depth.
    Question. What is your opinion of the Army practice for the last 
ten years of using real estate consultants to assist with the 
development of housing privatization initiatives and the management of 
finances in awarded transactions?
    Answer. It is my understanding that the Army's practice of using 
real estate consultants to assist with the development of housing 
privatization programs has significantly contributed to the success the 
Army has experienced in its privatization efforts. If confirmed I would 
support the Army's effort to continue to use private sector expertise 
and consulting services as it interfaces with the capital markets and 
real estate developers.
    Question. What changes, if any, do you think are needed with 
respect to the Army's practice of giving access to private sector 
experts in these decisions and processes?
    Answer. It is my understanding that the Army is considering new 
business processes regarding the use of consultant support. If 
confirmed, I would carefully study the Army's efforts to rebalance the 
tasks performed by its employees and private consultants and focus 
consultant use on providing financial, real estate, or research 
expertise, which is not inherent in the Army workforce.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military Services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    What is your assessment of Army infrastructure investment?
    Answer. I do not have sufficient information at this time to make 
an assessment. If confirmed, I would undertake to assess the 
sufficiency of the Army's current infrastructure investment strategy 
and implementation plan.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. If confirmed, I would support an investment strategy to 
ensure that the infrastructure backlog is addressed. I would also seek 
support from the Secretary of Defense and Congress for the President's 
budget request for Army installations and facilities.
            implementation of base closures and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process has resulted in the required closure or realignment of numerous 
major Army installations. The DOD installation closure process 
resulting from BRAC decisions has historically included close 
cooperation with the affected local community in order to allow these 
communities an active role in the reuse of property.
    If confirmed, would you change any of the existing efforts to 
assist affected communities with economic development, revitalization, 
and reuse planning of property received as a result of the BRAC 
process?
    Answer. If confirmed, I would assess the current efforts and 
consider whether changes are warranted. I would also work diligently to 
uphold the commitment to support the communities of both closing and 
gaining installations.
    Question. What, in your view, are the advantages or disadvantages, 
if any, on the use of no cost Economic Development Conveyances as a 
means of early property transfers under BRAC as opposed to holding out 
for full fair market value?
    Answer. I do not have sufficient information at this time to make 
an assessment.
                   expansion of army training ranges
    Question. With the recent inability of the Army to be able to gain 
support for the expansion of the Pinon Canyon Maneuver Site in 
Colorado, how would you propose addressing valid operational 
requirements to expand training and maneuver ranges across the United 
States as new weapon systems and additional end-strength drives the 
need for additional land for training?
    Answer. The most important way the Army can address valued 
operational requirements is to do so in partnership with the 
communities surrounding the installations. I believe that when all 
stakeholders and partners are adequately informed of Army issues and 
public concerns, reasonable solutions can be found.
             army policies regarding drug and alcohol abuse
    Question. What is your understanding of the Army's policy with 
respect to disciplinary action and administrative separation of 
soldiers who have been determined to have used illegal drugs? Do you 
agree with this policy?
    Answer. Illegal drug use is not consistent with Army values or the 
Army mission. The Army Substance Abuse Program (ASAP) is a commander's 
program used to assess the personnel readiness of his or her soldiers. 
Army policy is that any disciplinary or administrative action taken 
should be based on the misconduct that led to the referral to ASAP, not 
on the fact that the soldier is enrolled in the program. I agree with 
this policy because it gives the commander a tool to monitor the 
personnel readiness of his or her unit while providing sufficient 
flexibility when dealing with violations.
    Question. What is your understanding of the Army's policy with 
respect to rehabilitation and retention on active duty of soldiers who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. Commanders are required to refer all potential alcohol 
abusers identified by self-referral, alcohol testing, DUI/DWI, 
investigation, apprehension, underage drinking, or other incident 
involving the use of alcohol to ASAP for screening and potential 
enrollment within 5 working days of the incident or investigation. 
Commanders are required to process soldiers for separation who are 
involved in two serious incidents of alcohol-related misconduct in a 
12-month period. This documentation is processed through the chains of 
command to the separation authority for final disposition. 
Additionally, any soldier who is convicted of a DWI/DUI twice during 
their career must be administratively separated unless retained by the 
court martial convening authority. This authority may not be delegated. 
Soldiers diagnosed as alcohol dependent would be detoxified and given 
appropriate medical treatment. Those soldiers who warrant retention 
based on their potential for continued military service would be 
offered rehabilitation and retained. Soldiers who are separated would 
be referred to a Veterans Administration (VA) hospital or a civilian 
program by the ASAP counselor to continue (or initiate) their 
rehabilitation.
    Soldiers who test positive for illicit drugs for the first time 
would undergo a process of evaluation for dependency, would be 
disciplined as appropriate, and may face possible separation as 
circumstances warrant. If a soldier tests positive for illicit drugs, 
is subsequently retained by the separation authority, then tests 
positive again, the soldier's chain of command would initiate 
administrative separation and forward the case to the court martial 
convening authority for decision on the disposition of the action. This 
authority may not be delegated.
    This policy appears to provide a clear requirement for commanders 
to refer soldiers and to appropriately review them for separation or 
retention within the parameters of Army regulations. Soldiers may also 
seek treatment through self referral. Soldiers who are retained must 
meet the standards for continued service to the Army.
    Question. Do you believe that the Army has devoted sufficient 
resources to implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways?
    Answer. Although I have not had the opportunity to fully track 
these programs, it would appear that some installations do not have 
sufficient numbers of counseling resources to provide timely services 
to soldiers. The Army is working to ensure that sufficient counselors 
are available and that this number takes into consideration the current 
state of continuous conflict.
    Question. What measures are being taken to improve the Army's 
performance in responding to problems of drug and alcohol abuse?
    Answer. I do not have sufficient information to make an assessment.
                        tobacco and the military
    Question. The Institute of Medicine recently released a study 
commissioned by DOD and the Department of Veterans Affairs which 
recommends, among other things, that the Department begin phasing in a 
tobacco-free military. These findings have evoked angry responses among 
some servicemembers.
    What is your understanding of the impact of tobacco use on the 
military and the effectiveness of current policies within DOD and the 
Army aimed at preventing tobacco use?
    Answer. Tobacco use in the military, as well as in civilian 
society, has widely known and long-term consequences. I am informed 
that significant short-term implications of tobacco use affect military 
readiness. It is my understanding that current Army policies discourage 
smoking and even prohibit it at certain times or in certain areas. 
Nevertheless, many smokers in the military report they started smoking 
only after joining the military. The percentage of soldier smokers is 
higher than the percentage of smokers across the U.S. population. Based 
on this information, it appears that current policies and educational 
efforts may not be as effective as hoped.
    Question. If confirmed, what additional measures, if any, would you 
take to reduce the problem of tobacco use by soldiers and their family 
members?
    Answer. If confirmed, I would investigate additional means possible 
to discourage tobacco use by members of the Army.
            abortion in military medical facilities overseas
    Question. What is your understanding of current requirements 
regarding performance of abortions at military treatment facilities?
    Answer. It is my understanding that no DOD funds may be used to 
administer any policy that provides for abortions at any DOD facility, 
except where the life of the mother may be endangered if the fetus were 
carried to term or where the pregnancy resulted from an act of rape or 
incest.
    Question. What changes, if any, would you recommend with regard to 
these requirements?
    Answer. If confirmed, I would review the applicable law and 
policies with the Army's legal and medical experts to determine if any 
changes are necessary.
                   national security personnel system
    Question. Section 1106 of the National Defense Authorization Act 
for Fiscal Year 2008 restored the collective bargaining rights of 
civilian employees included in the National Security Personnel System 
(NSPS) established by DOD pursuant to section 9902 of title 5, U.S.C. 
Under section 1106, the Department retains the authority to establish a 
new performance management system (including pay for performance) and 
streamlined practices for hiring and promotion of civilian employees.
    What is your view of the NSPS, as currently constituted?
    Answer. I understand that the core purpose of NSPS was to support a 
streamlined and flexible civilian compensation, staffing, 
classification, and performance management system. Such a system is 
viewed as essential to the effective management of the sort of mission-
oriented and results-driven civilian workforce that is vital to DOD's 
success. I recognize the many concerns with certain aspects of NSPS and 
understand that the NSPS Task Group's draft recommendation to the 
Defense Business Board was to initiate a reconstruction of the system. 
If confirmed, I look forward to working with DOD in the review of the 
recommendations detailed in the final report of the Defense Business 
Board
    Question. If confirmed, how would you evaluate its success or 
failure to meet its goals?
    Answer. If confirmed, I would first review the findings and 
recommendations of the Defense Review Board and familiarize myself with 
reports from the Government Accountability Office and the Office of 
Personnel Management and with other assessments that may be available. 
I would seek insights both into what works well in the extant system 
and into areas recommended for improvement, based on input for all 
stakeholders including recognized employee groups.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. As a general principle, I support pay-for-performance and 
believe that employees' compensation should be based on their 
contribution to the mission. If confirmed, I look forward to reviewing 
the Defense Review Board's comprehensive evaluation of NSPS and working 
with DOD to address the concerns identified.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. I am advised that the Department is challenged to meet 
increased civilian labor requirements in critical occupations and to 
develop human capital strategies responsive to these challenges. It is 
my understanding that there are situations in which specialized hiring 
authorities are required to provide sufficient qualified applicants to 
meet mission needs. However, before making recommendations for 
additional authorities, I would want to ensure that managers fully 
understand the flexibility of the authorities currently available. If 
confirmed, I would work with the Assistant Secretary of the Army 
(Manpower and Reserve Affairs) to prompt managers to creatively and 
actively use available authorities and to explore the need for, and 
uses of, direct and expedited hiring authorities to assist in achieving 
the Department's human capital objectives.
    Question. In your view, is it viable in the long run for DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. It is my understanding that DOD operates a number of other 
personnel systems, such as the Defense Civilian Intelligence Personnel 
System, a system for nonappropriated fund personnel, and laboratory 
demonstration projects. If confirmed, I would work with DOD, the Office 
of Personnel Management, and the Assistant Secretary of the Army 
(Manpower and Reserve Affairs) to assess the appropriate number and 
types of personnel systems required for effective and efficient 
personnel management in the Department of the Army.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. It is my understanding that the NSPS Task Group recently 
briefed its draft recommendations to the Defense Business Board and 
that the Task Group recommended reconstructing NSPS. Depending on the 
content of the final report, legislation may be appropriate to ensure 
that NSPS is on track to achieve its full potential.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. It is my understanding that the NSPS Task Group recently 
briefed its draft recommendations to the Defense Business Board and 
that the Task Group recommended reconstructing NSPS. Depending on the 
content of the final report, regulatory or policy changes may be 
appropriate to ensure that NSPS is on track to achieve its full 
potential.
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. The Army must carefully manage and develop its Senior 
Executive Service corps to meet the evolving work force challenges 
facing the Department. As I understand it, members of the Senior 
Executive Service are increasingly being looked to, when appropriate, 
as replacements for military flag officers in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields. To support this effort, I understand the Army's 
Senior Executive program focuses on the recruitment, assignment, and 
development of adaptive, multi-skilled senior civilian leaders, and 
that the current Senior Executive program includes periodic education 
and development opportunities and performance-based evaluations.
    Question. Over the last 10 years, the Army budget has almost 
doubled, but the number of senior executives in the Department of the 
Army has remained almost unchanged.
    Do you believe that the Army has the number of senior executives it 
needs, with the proper skills to manage the Department into the future?
    Answer. If confirmed, I would carefully assess the Army's Senior 
Executive requirements and work to ensure that the Army has the number 
of Senior Executives with the diverse set of skills and experiences 
required to lead the Department into the future.
                        initial recruit training
    Question. The committee has received reports from non-commissioned 
officers in operational units that new recruits graduating from basic 
training and advanced training are not prepared as they reach their 
units. Moreover, the committee has received reports of some recruits 
suffering from mental health and other health issues upon first 
arriving to their units.
    Do you believe that the Army's basic and advanced training programs 
fully prepare new soldiers for combat operations?
    Answer. As I understand the question, Army basic and advanced 
training programs are not intended to provide specific training for 
combat operations. Rather, it is my understanding that new soldiers are 
trained to ensure they have the skills required by their military 
specialty and to function as an individual soldier, and later receive 
additional training when assigned to a unit to prepare them for combat 
operations.
    Question. In your view, has the Army sacrificed quality of 
personnel for quantity in achieving the past 2 years' growth in end 
strength?
    Answer. At present, I do not have the information required to 
answer your specific question. If confirmed, I will focus on 
maintaining the quality of the Army's All-Volunteer Force.
    Question. Has the Army lowered its basic and advanced training 
standards, including physical standards, to achieve this growth by 
graduating more recruits as compared to historical norms?
    Answer. I am informed that the standards of training, including 
physical training, have not been lowered and are in fact higher than 
before to prepare soldiers for the conflicts they will face. The 
graduation rates for basic and advanced training are about the same as 
historical norms. If confirmed, I will work with Congress to ensure 
that our recruits continue to be adequately trained.
                          stop loss authority
    Question. What is your assessment of the Army's plan to implement 
the Secretary of Defense's recent direction to end the use of stop-
loss?
    Answer. It appears the Army has a plan in place to implement the 
Secretary of Defense's guidance on the use of stop loss. The Army 
Reserve will begin mobilizing units without stop loss after 1 August 
2009; the Army National Guard will begin mobilizing units without stop 
loss after 1 September 2009; and the active Army will begin deploying 
units without stop loss after 1 January 2010. I do not have sufficient 
information at this time to make an assessment.
    Question. In your view, is the termination of stop-loss in the Army 
achievable without adversely affecting unit manning, cohesion, and 
readiness?
    Answer. I do not have sufficient information to make an assessment 
at this time.
                    operational and personnel tempo
    Question. Current DOD policy is that Active component personnel 
would have 2 years of dwell time for each year of deployment and that 
Reserve component members would have 5 years of dwell time for each 
year they are mobilized.
    What is your view of the achievability of this goal? What measures 
must be taken by the Army to be able to achieve it in 5 years or less?
    Answer. The Army's ability to achieve its steady-state deployment-
to-dwell time ratios of 1:3 for the Active component and 1:5 for the 
National Guard and Reserve would be a function of end strength and 
demand. The Army is currently working to achieve its surge deployment-
to-dwell time ratios of 1:2 for the Active component and 1:4 for the 
National Guard and Reserve.
    Question. In your view, how would shifting resources from Iraq to 
Afghanistan affect dwell-time ratios?
    Answer. Shifting resources from Iraq to Afghanistan would not 
affect dwell-time ratios unless it results in an increase or decrease 
in demand. The key factor in deployment-to-dwell time ratios is overall 
demand.
    Question. How would the end of the use of stop-loss affect dwell 
time ratios?
    Answer. It will create additional demand in manning units scheduled 
to deploy. While this may have a negative impact on individual soldier 
dwell, the Army is offering incentive programs to encourage soldiers to 
extend to complete deployments with their units. The Army is hopeful 
that these measures would mitigate the increased demand. The recent 
approval of a temporary end-strength increase of 22,000 soldiers will 
also significantly assist in manning units without stop loss.
    Question. What is your assessment of the Army's ability to support 
scheduled troop rotation planning in 2009 and beyond, particularly in 
combat support and combat service support missions, given this goal?
    Answer. The Army will continue to support scheduled troop rotation 
planning, including combat support and combat service support units, in 
2009 and beyond. The recent approval of a temporary wartime allowance 
for an additional 22,000 soldiers will assist the Army in its efforts 
to man units without stop loss and improve dwell. Achieving steady-
state dwell time goals will depend on future reductions in demand.
    Question. What measures are being taken to respond to operational 
requirements for low-density, high-demand units and personnel whose 
skills are found primarily in the Reserve components, e.g., civil 
affairs, medical personnel, and truck drivers?
    Answer. I do not have a detailed knowledge of all the measures 
being implemented. I believe the Army continues to seek solutions to 
sourcing low-density, high-demand requirements with a variety of 
initiatives, including the use of individual augmentees and rebalancing 
certain military occupational specialties between the Reserve and 
Active components.
    Question. In your view, what would be the effect on recruiting, 
retention, and readiness of the Army of the current rates of operations 
and personnel tempo through 2010?
    Answer. The Army has seen no negative effects on recruiting and 
retention because of operational and personnel tempo. Despite the 
challenges of a protracted conflict, the Army recently exceeded its 
enlisted recruiting missions for the first time since fiscal year 2002 
and is optimistic it will meet its goals for fiscal year 2009 and 
fiscal year 2010. The Army monitors retention very closely given the 
high operational demand and multiple deployments soldiers experience. 
Statistics show that multiple deployments to Afghanistan and Iraq are 
not adversely affecting enlisted retention. On the officer side, the 
multiple deployments required of the Army to ensure success in overseas 
contingency operations missions have not resulted in increased losses 
of midgrade officers over the past several years. The Army's loss rates 
are well within historical norms at all officer grades and actually 
decreased slightly in company grade officers during 2008 and so far 
during 2009. The majority of the present generation of young officers 
and noncommissioned officers has entered the Army during a time of 
conflict. They have known the challenges we face and are continuing to 
serve with distinction in a very fluid and demanding environment.
    Question. In your judgment, what would be the impact on the current 
rates of operations and personnel tempo of assigning principal 
responsibility for support to civil authorities for consequence 
management of natural, domestic disasters to Reserve component forces? 
What would be the impact of assigning these responsibilities to Active 
component forces?
    Answer. I believe assigning principal responsibility for these 
missions to the Reserve Forces would likely lessen the demand on 
Active-Duty Forces, potentially yielding some improvements in 
operational and personnel tempo for the Active Duty. The reverse would 
likely be true if responsibility were assigned to Active-Duty Forces.
               medical personnel recruiting and retention
    Question. The Army continues to face significant shortages in 
critically needed medical personnel in both Active and Reserve 
components. Increasing medical support requirements, caused by the 
growth of the Army and the modular force, surge requirements in 
theater, and other factors would compound the already serious 
challenges faced in recruitment and retention of medical, dental, nurse 
and behavioral health personnel.
    What is your understanding of the most significant personnel 
challenges in recruiting and retaining health professionals in the 
Army?
    Answer. As the Nation deals with a shortage of medical 
professionals, the recruiting and retention of skilled and dedicated 
care providers continues to be a significant challenge for the Army. 
Issues of operational tempo, pay compatibility, and adequacy of support 
staff present ongoing hurdles to overcome. Even during these 
challenging times, I am heartened that Army medicine continues to 
attract and produce world-class physicians, nurses, and medics.
    Question. If confirmed, would you undertake a comprehensive review 
of the medical support requirements for the Army, incorporating all new 
requirements for 2010 and beyond?
    Answer. If confirmed, I would review medical support requirements 
on a regular, recurring basis and incorporate all new requirements in 
ongoing planning and recruiting efforts. I am advised that the Army 
already reviews medical support requirements as part of its ongoing 
internal processes and, if confirmed, I would continue this practice.
    Question. If confirmed, what policies or legislative initiatives, 
if any, are necessary in order to ensure that the Army can continue to 
fulfill medical support requirements as its mission and end strength 
grow?
    Answer. If confirmed, I would work closely with The Surgeon General 
to evaluate the Army's requirements, support ongoing programs, and 
develop initiatives to enhance the Army's ability to recruit and retain 
care providers and support personnel with the requisite critical 
skills. Should legislative or policy changes be required, I will work 
with the leadership of DOD and Congress to bring them to fruition.
                     ground combat exclusion policy
    Question. In May 2005, you cosponsored an amendment to the House-
passed National Defense Authorization Act for Fiscal Year 2006 that 
would have required the Secretary of Defense to notify Congress if he 
proposed any changes to the ground combat exclusion policy or if he 
proposed to open or close any career designator to the assignment of 
women. In speaking of this amendment, you stated: ``Many Americans feel 
that women in combat or combat support positions is not a bridge that 
we want to cross at this point.''
    What objective did you have in mind when you cosponsored this 
amendment?
    Answer. The language as first included in the Military Personnel 
Subcommittee mark was inserted at the direct request of the full 
committee chairman. Subsequent to that adoption, it became clear that 
the Army had not provided the committee with a full and complete 
picture of the extent to which women were being used in forward support 
companies, and it was not clear that the Army was in compliance with 
DOD's existing regulations. Accordingly, I worked with the chairman and 
other senior members of the committee to develop a secondary amendment 
that, in essence, sought to codify existing DOD regulations and require 
notification to Congress of any proposed changes to units and 
assignments for female members. My intent was to provide for better 
oversight by requiring the Secretary of Defense to notify Congress of 
changes to the ground combat exclusion policy or proposals to open or 
close any career designator to the assignment of women. I also 
introduced a second amendment to require the Secretary of Defense to 
review military service policies with regard to the assignment of 
women, with a specific focus on the collocation policy.
    Question. Do you believe that it is appropriate for female soldiers 
to serve in positions in which they may be exposed to combat?
    Answer. Female soldiers make irreplaceable contributions to the 
Army's success and are an integral part of the All-Volunteer Force. All 
soldiers--male and female--are trained to fight in combat. As I 
understand the current law and policy, once properly assigned, female 
soldiers are subject to the same utilization policies as their male 
counterparts and, as required by their unit's mission, may find 
themselves in combat. Female soldiers remain with their assigned units, 
perform their assigned duties, and operate as a team with male soldiers 
as they have been trained to do.
    Question. What is your view of the current policy regarding women 
in combat with respect to female soldiers serving in OIF and OEF?
    Answer. In my view, the current policy seems to be operating 
adequately. If it is determined a need exists to consider a change to 
that policy, I would provide the Secretary of Defense with the most 
accurate information and cogent advice possible regarding the changes 
sought and would ensure that the Army complies with all the 
notification requirements in title 10.
    Question. What is your assessment of the Army's compliance with the 
requirements of the current ground combat exclusion policy?
    Answer. It is my understanding that the Army is in compliance with 
the requirements of law and DOD policy relating to women in combat. 
Women have and will continue to be an integral part of the Army team, 
performing exceptionally well in all specialties and positions open to 
them.
    Question. In your view, should the current policy prohibiting the 
assignment of women to ground combat units be revised or clarified in 
any way to reflect changing roles for female soldiers and the changing 
nature of warfare?
    Answer. If confirmed and if, after careful study and deliberation, 
it is determined it is necessary to seek a change to the policy, I 
would provide the Secretary of Defense with the most accurate 
information and cogent advice possible regarding the changes sought and 
would ensure that the Army complies with all the notification 
requirements in title 10.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Army regarding religious 
practices in the military?
    Answer. At this time I do not have a sufficiently detailed 
knowledge of the current policies and programs, but it is my belief 
that whatever policies are in place must be consistent with the First 
Amendment protections afforded to all Americans.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular forms of 
dress or other articles with religious significance?
    Answer. At this time I do not have a sufficiently detailed 
knowledge of the current policies and programs, but it is my belief 
that whatever policies are in place must be consistent with the First 
Amendment protections afforded to all Americans.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. At this time I do not have a sufficiently detailed 
knowledge of the current policies, but it is my understanding that Army 
policies require chaplains to support all unit personnel, regardless of 
their beliefs.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. At this time I do not have a sufficiently detailed 
knowledge of the current policies and programs, but it is my belief 
that whatever policies are in place must be consistent with the First 
Amendment protections afforded to all Americans.
                             family support
    Question. The Army Family Action Plan has been successful in 
identifying and promoting quality of life issues for Army families.
    What do you consider to be the most important family readiness 
issues in the Army, and, if confirmed, what role would you play to 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. I recognize that soldiers and their families have made, and 
continue to make, significant personal sacrifices in support of our 
Nation. I fully support the Army Family Covenant, a commitment to 
provide soldiers and their families--Active, Guard, and Reserve--a 
quality of life commensurate with their level of service. If confirmed, 
I would continue efforts to improve family readiness through the Family 
Covenant. As the former chair and ranking member of the House Armed 
Services Personnel Subcommittee, I endeavored to ensure that military 
families received the support and resources they required. If 
confirmed, I commit to continuing my advocacy on behalf of Army 
families.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, lengthy deployments, and the planned 
growth of the Army?
    Answer. Repeated deployments and frequent moves because of base 
realignment and closure and other Army transformational efforts combine 
to create stress and anxiety for Army families. The Army offers a 
number of family service programs--child and youth services, relocation 
and recreational programs, and a myriad of counseling services--all 
designed to foster strong, resilient families capable of successfully 
navigating the challenges of military service and coping with the 
demands of a military lifestyle. One of the ``pillars'' of the Army 
Family Covenant is to standardize and fund these programs and services 
throughout the Army, providing families with predictable and consistent 
services no matter where they may be stationed. If confirmed, I would 
continue to advocate for the robust family service programs that I 
believe to be so important to creating a supportive environment in 
which Army families can thrive.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment and family 
readiness, as well as active-duty families who do not reside near a 
military installation?
    Answer. Supporting the families of geographically dispersed 
soldiers poses special challenges but would be a high priority for me 
if I am confirmed. I understand that the Army already has undertaken 
several initiatives focused specifically on service to Reserve 
component families as well as to active duty families who do not reside 
near a military installation. In 2008 the National Guard Bureau created 
the Soldier Family Services and Support Division to provide family 
program resources, guidance, and training to all States and 
territories. In addition, the Army has implemented the Yellow Ribbon 
Reintegration Program; added more than 1,000 family readiness support 
assistant positions to provide administrative and logistical support to 
Family Readiness Groups; established ``Army OneSource'' to provide 
soldiers and their families with online access to standardized 
services, programs, and support; supported 249 Army National Guard 
Family Assistance Centers; and expanded community-based outreach to 
geographically dispersed children and youth of deployed Active, Guard, 
and Reserve soldiers through Operation Military Kids.
                      mental health advisory teams
    Question. The Army's Mental Health Advisory Team (MHAT) studies in 
the Iraqi theater have been valuable in identifying the extent of 
mental health conditions and resource and training challenges being 
experienced in OIF. The most recent report, MHAT V, stated that 
deployment length and number of deployments were related to higher 
rates of mental health problems.
    Based on the findings of MHAT V that soldiers experience increased 
stress due to multiple and lengthy deployments, what actions would you 
take, if confirmed, to ensure that appropriate mental health resources 
are available to soldiers in theater, as well as upon their return?
    Answer. I have been advised that the MHATs have shown that far-
forward mental health prevention and care are effective in assisting 
soldiers and reducing unnecessary evacuations from theater. If 
confirmed, I would review the Army's current force structure, and 
recruitment and retention programs for behavioral health providers 
across all force components, military and civilian, to make sure 
sufficient behavioral health providers are in theater and at home.
    Question. What do you think have been the most valuable findings of 
the Army's MHATs, and what are the lessons which can be applied to 
future deployments?
    Answer. I have been informed that multiple valuable findings have 
emerged from the Army's MHATs, which have been studying and reporting 
on mental health issues in combat zones since 2003. Among the findings 
are that the level of combat a soldier is and has been involved in 
continues to be the main determinant of a soldier's mental health 
status, good noncommissioned officer leadership is a key to sustaining 
a soldier's mental health and well-being, and the stigma that continues 
to be associated with those who seek mental health care.
    MHAT findings have been used as the basis to reshape existing 
combat and operational stress control units to create more flexible and 
capable organizations. Information from the teams has also been used to 
better predict the quantity of behavioral health assets required for 
current and future conflicts. Finally, information from the teams has 
been used to create a training program known as ``Battlemind,'' which 
changes the way the Army prepares soldiers, leaders, and families for 
high-stress deployments. The importance of leadership in the mitigation 
of mental health difficulties is a vital lesson that must be applied to 
future deployments.
                                suicides
    Question. The committee continues to be concerned about the 
continuing increase in soldier suicides.
    In your view, what is the cause of this surge in the number of 
suicides?
    Answer. I have been advised that the data suggests no single reason 
exists for the increase in the number of suicides in the Army. Several 
individual and organizational factors working in concert appear to lead 
an individual to make the tragic decision to end his or her life. The 
Army's operational tempo appears to play a role, but precisely what 
that role may be is unclear. For example, my understanding is that 
approximately one-third of all suicides across all Army components 
since 2003 were soldiers who had never deployed.
    Question. What is your assessment of the Army's response to this 
increase in suicide rates?
    Answer. I have been advised that the Army has taken important 
proactive steps to address this problem, including implementation of 
suicide prevention and intervention training for its personnel; issuing 
the Army Campaign Plan for Health Promotion, Risk Reduction, and 
Suicide Prevention; and entering into an agreement with the National 
Institute of Mental Health to conduct a 5-year longitudinal study with 
the goal of identifying both the causes of suicides and viable 
intervention methods. I pledge to you that, if confirmed, one of my top 
priorities would be to ensure that the Army's response to this critical 
problem is aggressive, effective, and appropriate.
    Question. The Army recently signed an agreement with the National 
Institute of Mental Health to perform a 5-year study on suicides in the 
Army.
    If confirmed, what actions would you propose that the Army take in 
the meantime to enhance its suicide prevention program?
    Answer. I appreciate and share the committee's sense of urgency in 
addressing issues of suicide prevention and intervention. If confirmed, 
I would work to ensure that the suicide prevention program receives the 
leadership, resourcing priority, and support necessary to effectively 
address this difficult and challenging problem.
                      support for wounded soldiers
    Question. Wounded soldiers from OEF and OIF deserve the highest 
priority from the Army for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty if required, and continuing support beyond retirement 
or discharge. Yet, as the revelations at Fort Stewart in 2003 and 
Walter Reed in 2007 revealed, the Army was not prepared to meet the 
needs of returning wounded soldiers.
    In your view, what were the most critical shortcomings in warrior 
care since 2001?
    Answer. As I understand it, the Army was not prepared for the 
increase in wounded, ill, and injured soldiers that resulted from 
overseas contingency operations such as OEF and OIF. One area that 
needed improvement was the management of outpatient soldiers during 
their recovery period. If confirmed, I will do everything I can to 
continue to promote a high standard of care for wounded warriors.
    Question. What is your assessment of the Army's response?
    Answer. The Army is in the process of transforming its care for 
wounded, ill, and injured soldiers and their families. As a cosponsor 
of the Wounded Warrior Assistance Act of 2007 in the House of 
Representatives, it was one of my highest priorities during my time on 
the House Armed Services Committee. If confirmed, I would assess the 
effectiveness of the Army's response and continue to work with Congress 
to ensure that America's warriors receive the highest possible care and 
support.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from Active service? How effective are 
those programs?
    Answer. I am informed that the Army established the Army Wounded 
Warrior Program in 2004 to provide follow-on assistance to wounded 
personnel who have separated from service. The Army Wounded Warrior 
Program assists and advocates for the most severely wounded, injured, 
and ill soldiers, veterans, and their families by providing 
personalized support through more than 120 local Army wounded warrior 
advocates who connect soldiers and veterans with resources and assist 
in their transition to life post-injury. Should I be confirmed, I would 
strongly support this program and work to improve the partnership with 
the VA to ensure the care of all wounded soldiers separating from 
service.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. If confirmed, I would continuously assess the efficiency 
and appropriateness of the Army's support for wounded personnel. I 
would implement strategies and seek additional resources as appropriate 
to make sure the Army meets the needs of wounded soldiers.
    Question. Studies following the revelations at Walter Reed point to 
the need to reform the Army's disability evaluation system.
    What is your assessment of the need to streamline and improve the 
Army's disability evaluation system?
    Answer. I understand that beginning on November 26, 2007, the Army 
initiated testing of a revamped physical disability program at Walter 
Reed Army Medical Center, streamlining the process used to determine 
soldiers' fitness for service or eligibility for military and veterans' 
benefits. Key features of this pilot program include a single medical 
examination and a single sourced disability rating.
    If confirmed I would closely examine the disability evaluation 
process to reveal any areas that need to be improved. I would also work 
toward this end with stakeholders in the Army, as well as with experts 
in DOD and VA.
    Question. Is it your view that the Army currently is correctly 
assigning disability ratings to soldiers who are found not to be fit 
for duty?
    Answer. I do not have sufficient information to make a judgment at 
this time.
    Question. If confirmed, how would you address any need for change?
    Answer. If confirmed, I would listen to the information presented 
by the experts in this area. I would work with the stakeholders in the 
Army and with appropriate personnel in both DOD and VA to determine 
what elements of the current system should be changed and how to best 
accomplish those changes.
             army medical action plan and wounded warriors
    Question. The Army Medical Action Plan (AMAP) has attempted to 
address the various needs of wounded warriors and their families.
    What is your view of the adequacy of the AMAP, and if confirmed, 
would you make any changes to the program?
    Answer. The AMAP, now referred to as the Army's Warrior Care and 
Transition Program, has accomplished much over the past 2 years. If 
confirmed, I would support continued refinement of the program to 
ensure that it is not only efficient and effective, but is flexible 
enough to meet the demands of changing circumstances.
    Question. Staffing of Warrior Transition Units (WTUs) has been a 
major issue, especially at installations experiencing surges of 
redeploying troops.
    What are the impediments to fully staffing these units?
    Answer. I do not have sufficient information to make a judgment at 
this time.
    Question. If confirmed, would you pursue changes to improve 
assignment of military personnel and hiring of civilian personnel to 
improve staffing of WTUs?
    Answer. If confirmed, I would ensure that systems are put in place 
to assign appropriate staffing in WTUs. WTUs must be able to expand or 
contract as the population of wounded, ill, and injured soldiers 
changes.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving soldiers in 
Iraq, Kuwait, and Afghanistan have been reported over the last several 
years. Many vicitims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
Army failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their charges 
and, ultimately, appropriate disciplinary action.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of sexual assaults 
the medical, psychological, and legal help that they need?
    Answer. It is my understanding the Army has taken a number of 
significant steps to improve the assistance to victims of sexual 
assault, including enhanced recognition of the special circumstances 
that apply to deployments. In addition, I understand that the Army has 
implemented a comprehensive Sexual Assault Prevention and Response 
Program (SHARP), which includes medical, advocacy, chaplaincy, 
investigative, and legal services. Under this program, the Army 
requires every unit, brigade-size and higher, to appoint and train a 
deployable sexual assault response coordinator and requires every 
battalion to appoint and train two unit victim advocates. If confirmed, 
I would ensure that the Army continues to take appropriate steps to aid 
victims of sexual assault, both in garrison and deployed locations.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults at deployed locations as well as 
home stations?
    Answer. In my opinion, the Army has taken several important steps 
in its campaign to prevent sexual assaults both at home stations and 
deployed locations. For instance, I have been informed that the ``I. 
A.M. Strong'' Prevention Campaign is being implemented across the Army. 
``I. A.M. Strong'' features soldiers as influential role models 
providing peer-to-peer messages to encourage other soldiers to take 
action to promote a positive command climate in which sexual assault is 
not acceptable. Command leadership and program representatives from 
divisions in deployed locations and home stations have participated in 
prevention summits held in September 2008 and April 2009. If confirmed, 
I would monitor these and other related programs closely.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. It appears that the Army is committed to ensuring that it 
has trained personnel and resources in place to investigate and respond 
to allegations of sexual assault. I have been advised that the Army 
continues to emphasize victim services and response capabilities. I 
have also been advised that the Army is in the process of hiring and 
placing additional special investigators and prosecutors at Army 
installations with the highest occurrences of sexual assault and adding 
examiners to the U.S. Army Criminal Investigation Laboratory. If 
confirmed, I would assess whether additional steps should be taken to 
support victims and hold offenders accountable.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. This effort needs to be robust and ongoing. Clearly, 
significant challenges remain unresolved. If confirmed, it would be a 
high priority.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. At this time I am not aware of any problems with the 
current restricted reporting procedures. If confirmed, I would closely 
monitor the Army's sexual assault response procedures to determine 
whether improvements are needed in the area of confidential reporting. 
While the program is vital, those who might use it must hold it in 
trust.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Army staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Sexual assault is a crime that has no place in the Army's 
ranks. The role of senior Army leadership is to ensure an 
organizational climate where such behavior is not tolerated and where 
victims feel free to report incidents without fear of reprisal.
    I have been advised that as part of senior leader involvement, 
senior Army leaders review the Army Sexual Assault Report quarterly and 
submit statistical data to DOD on both a quarterly and an annual basis. 
Senior leaders also submit an annual Army report and program assessment 
to the Secretary of Defense in accordance with statutory requirements 
and DOD policy. Finally, senior Army leaders require their Inspectors 
General periodically to assess the program for compliance with 
statutory and regulatory requirements.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of Departmental efforts 
on sexual assault prevention and response?
    Answer. If confirmed, I would work with Chief of Staff and the 
Assistant Secretary of the Army (Manpower and Reserve Affairs) and the 
Deputy Chief of Staff, G-1 to ensure that SHARP operates effectively 
and receives the appropriate level of support.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel, retirees, and their 
eligible family members.
    What challenges do you foresee in sustaining and enhancing Army MWR 
programs and, if confirmed, what improvements would you seek to 
achieve?
    Answer. I know from my experiences in representing the Fort Drum 
military community that Army MWR programs contribute immensely to the 
quality of life of military families. The continued vitality of these 
programs depends on consistent appropriated and nonappropriated 
funding. Yet I appreciate the difficulties associated with ensuring 
adequate funding for MWR activities in a challenging fiscal 
environment. In my view, the Army must constantly evaluate and improve 
support programs to meet the changing needs of soldiers and families. 
If confirmed, I would endeavor to ensure support for MWR programs that 
best meet the needs of soldiers and families and contribute positively 
to recruiting, retention, and readiness.
                           officer shortages
    Question. A report issued by the Congressional Research Service 
(CRS) in July 2006 found that the Army projected an officer shortage of 
nearly 3,000, with the most acute shortfalls in the grades of captain 
and major with 11 to 17 years of service. The CRS also found that 
shortages would persist through 2013 unless accessions are increased 
and retention improves. In that time, in addition to aggressive 
recruiting efforts, the Army has increased officer accessions through 
Officer Candidate School (OCS) from the pool of most qualified enlisted 
members.
    What is your understanding of the reasons for the current 
shortfall, and what is your assessment of the steps the Army is taking 
to meet this mid-career officer shortfall?
    Answer. I have been informed that Army officer shortages stem from 
force structure growth undertaken to support conversion to more self-
sufficient, modular combat formations and to provide additional 
capabilities to meet the emerging threats in counterinsurgency warfare. 
I am encouraged that the measures the Army has taken to resolve 
shortages in midgrade officers, including increased accessions (over 
5,000 by the end of fiscal year 2009); increasing Reserve component 
calls to Active Duty; using inter-service transfers, higher promotion 
rates, below the zone promotions, and earlier promotion pin-on point to 
a path of resolving this challenge.
    Question. In your view, what are the long-term consequences and 
challenges, if any, for both the officer and noncommissioned officer 
corps of increasing the relative size of the officer corps through OCS 
accessions?
    Answer. OCS graduates offer the Army a tremendous benefit; the OCS 
cohort has the highest officer retention rates of any commissioning 
program. I am informed that the noncommissioned officer corps can 
support demands to sustain OCS accessions at current and projected 
levels without adverse long-term consequences. In addition, the school 
has consistently produced minority officer candidates at the highest 
rate of any of the commissioning sources. It also offers an avenue for 
civilians with college degrees, in many cases in academic disciplines 
greatly needed in the Army, to enlist in order to seek a commission.
    Question. If confirmed, what actions, if any, would you take to 
ensure adequate numbers of highly qualified captains and majors are 
serving on Active Duty over the next 10 years?
    Answer. If confirmed, I would support the Army's strategy of 
retaining the capable and experienced company grade and junior field 
grade officers. In addition, I would support the continued development 
of nonmonetary incentives, including advanced education, quality of 
life, assignment to the region of choice, and other options that would 
best assist leaders in positively influencing an officer's decision to 
continue to serve.
    Question. If confirmed, what actions, if any, would you take to 
continuously monitor and ensure the quality of mid-career field grade 
and senior noncommissioned officers?
    Answer. If confirmed, I will continuously monitor and ensure the 
quality of the Army's midcareer field grade and senior noncommissioned 
officers. I would also work to ensure that midgrade and noncommissioned 
officers receive the necessary training and mentoring to realize the 
full benefit of their Army experience.
                      detainee treatment standards
    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. I fully support the policy set forth in Deputy Secretary of 
Defense England's July 7, 2006, memorandum.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, DOD 
Detainee Program, dated September 5, 2006?
    Answer. I do. The Army Field Manual and the directive clarify the 
roles, responsibilities, and relationships among military intelligence, 
military police, and health care providers in detainee operations and 
establish unequivocally that humane treatment is the standard of care 
for all detainees. These documents and the standards they promulgate 
have been instrumental in restoring the confidence of the American 
people in the Army as an institution and should act as important 
resources to guide soldiers in future contingency operations.
    Question. Do you believe it is consistent with effective military 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Compliance with the humane treatment standards specified in 
Common Article 3 of the Geneva Conventions is fully consistent with 
effective U.S. military operations and with Army values.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. It is my understanding that as the DOD Executive Agent for 
the administration of detainee operations policy, the Secretary of the 
Army is responsible for gathering ``lessons learned'' from detention 
operations and incorporating those lessons in Army policy and doctrine. 
U.S. forces worldwide are held to standards that are rooted in sound 
training and enforced by leadership. If confirmed, I will work to 
reinforce the Army's robust detention operations training program, 
which ensures that all U.S. forces involved in detainee and 
interrogation operations are aware of their obligations under U.S. and 
international law and implementing DOD policies.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. As I understand it, the primary lessons learned include, 
first and foremost, that the Army must clearly communicate its 
commitment to ensuring that all soldiers adhere to the law of war and 
live up to the Army values, regardless of the circumstances. Second, 
soldiers who are determined to have violated the laws of war or to have 
failed to uphold Army values must be held accountable, as appropriate.
    Another major lesson learned is that the Army may need to expand 
its detention operations force structure, particularly military police 
and military intelligence. If confirmed, I will act to ensure that the 
Army continues to assess and refine the force structure needed to 
successfully support the combatant commanders' detention operations 
missions.
    Although Army policies have always prohibited inhumane treatment, 
Army detention operations policy and doctrine required revisions to 
incorporate operational realities. Policy and doctrine across the full 
spectrum of detention operations have been revised and published. I am 
told that key revisions include the designation of a single commander 
for detention operations; clear delineation of roles and 
responsibilities for detainee care, custody, and interrogations; and 
the promulgation of very specific guidance for identifying and 
reporting detainee abuse. It is my understanding that these new 
policies also mandate that U.S. forces receive additional law of war 
and cultural awareness training, and that the Army has enhanced 
detention operations training for soldiers, units, and civilians, not 
only in the predeployment context, but also as an annual requirement 
and by incorporating these courses into institutional training systems.
    Question. What should be done to incorporate those lessons learned 
into DOD doctrine, procedures, and training for personnel involved in 
detention and interrogation operations?
    Answer. It is my understanding that since 2004, the lessons learned 
have been spiraled into DOD policy, doctrine, and training. U.S. Army 
Intelligence Center and the Human Intelligence Training Joint Center of 
Excellence continue to incorporate lessons learned from current 
operations into the curriculum development for human intelligence-
specific training and also into curricula for the professional 
development of leaders of all ranks. Furthermore, the U.S. Army 
Combined Arms Center at Fort Leavenworth includes lessons learned for 
detention and interrogation operations in scenarios composed for the 
Battle Command Training Program and in the intermediate level education 
curriculum, both of which provide realistic and challenging training to 
prepare leaders to succeed in future operations. If confirmed, I would 
seek to ensure that the Army constantly reviews its procedures and 
updates its doctrine through the analysis of lessons learned and best 
practices derived from afteraction reviews conduced by returning units, 
and that lessons learned collected by the Center for Army Lessons 
Learned are used in the development and revision of Army policy, 
doctrine, and training.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
            institutionalizing support for irregular warfare
    1. Senator Levin. Representative McHugh, a major objective of the 
Department of Defense's (DOD) budget recommendations is to rebalance 
the Department's investments across the spectrum of conflict by 
increasing emphasis on lower-end, irregular, counterinsurgency, and 
stability type operations, all of which are areas that place a high 
premium and demands on Army capabilities. In order to ensure that a 
rebalance achieves this objective, and perhaps more importantly is then 
sustainable, Secretary Gates has stressed the need for the Department 
to institutionalize and finance the support necessary for irregular 
warfare capabilities that have been developed over the last few years 
and will be needed in the future. What, in your view, does it mean to 
institutionalize support for irregular warfare capabilities in the 
Army?
    Mr. McHugh. I believe that institutionalizing support for irregular 
warfare capabilities means making these competencies permanent--on par 
with traditional combat operations--across the categories of doctrine, 
organization, training, materiel, leader education, personnel, and 
facilities. It is my understanding that, with policy and strategy 
guidance from the Army Staff, the Army's Training and Doctrine Command 
is undertaking the transformation related to irregular warfare. These 
efforts have been underway for several years based upon the valuable 
lessons learned from operational experience. If confirmed, I would 
ensure this work continues.

    2. Senator Levin. Representative McHugh, if confirmed, what are the 
most important policy and program changes you would pursue in support 
of the further institutionalization of capabilities for irregular 
warfare in the Army?
    Mr. McHugh. I agree with Secretary Gates that we need to change the 
old paradigm of looking at potential conflict as either regular or 
irregular. If confirmed, I would review institutional processes and 
policies and adapt those required changes to execute a balanced 
strategy across the widest possible spectrum of conflict.

    3. Senator Levin. Representative McHugh, what are the obstacles, if 
any, to institutionalizing this kind of support, and, if confirmed, 
what action will you take to overcome them?
    Mr. McHugh. As with any institutional change, there is always some 
amount of resistance. However, over the last decade, the Army has shown 
increased capacity for learning and adapting particularly in the area 
of irregular warfare, including counterinsurgency and counterterrorism. 
If confirmed, I would work with Army senior leaders to identify and 
implement further changes as required.

                       new combat vehicle program
    4. Senator Levin. Representative McHugh, DOD's fiscal year 2010 
budget request includes cancelation of the family of armored manned 
ground vehicles in the Future Combat Systems (FCS) program. In 
announcing his decisions to restructure FCS and cancel the manned 
ground vehicle, and then again later in a speech at the Army War 
College, Secretary Gates emphasized his commitment to help the Army get 
a new ground combat vehicle in 5 to 7 years and promised to protect the 
Army's future years' funds that had been aligned with the FCS program 
for this purpose. In his testimony to the Subcommittee on Readiness and 
Management Support of the Senate Armed Services Committee last April, 
General Chiarelli said that the Army is committed to a ground combat 
vehicle modernization program and that they are, ``going to move out as 
rapidly as [they] can.'' The Army Chief of Staff has echoed this 
position and said the target to field a system is in the 2015 to 2017 
timeframe. What, in your view, is the appropriate schedule for 
developing a new ground combat vehicle system?
    Mr. McHugh. While I am not yet in a position to offer an informed 
assessment of an appropriate schedule for developing a new ground 
combat vehicle system, I am aware the Army leadership is already 
working on fielding the next ground combat vehicle in the timeline 
stated by Secretary Gates. Despite the FCS restructure and cancellation 
of the Manned Ground Vehicle, the Army still needs to modernize and a 
next generation combat vehicle must be a priority.


    5. Senator Levin. Representative McHugh, are you aware of any 
operational urgency in fielding a new ground combat vehicle in a 5- to 
7-year timeframe?
    Mr. McHugh. My understanding, based on communications from the 
Secretary of Defense and Chief of Staff of the Army, is that the Army's 
current ground combat vehicle platforms cannot meet growing and 
emerging demands for size, weight, and power and either have limited 
force protection and survivability or poor mobility and reliability. 
While I have not reached specific conclusions on vehicle needs and 
timelines, I do believe that persistent conflict demands shifting 
emphasis toward near-term needs while maintaining longer-term 
development goals.

    6. Senator Levin. Representative McHugh, what, in your view, are 
the acquisition management risks associated with a combat vehicle 
development timeline of 5 to 7 years?
    Mr. McHugh. It is my view that any quickly developed and rapidly 
fielded major acquisition program is at risk for cost, performance and 
schedule. It is my understanding that the Army is leveraging 
developments from the former FCS Manned Ground Vehicle platforms and 
other vehicle subsystems and components to help mitigate these program 
risks.

    7. Senator Levin. Representative McHugh, if confirmed, how would 
you propose to manage those risks?
    Mr. McHugh. I currently do not have the insight to offer a complete 
assessment of the risk management of the new ground combat vehicle 
development program, however, I believe risks can be mitigated by 
involving leaders in every step of the acquisition process to ensure 
that the program has proper oversight. If confirmed, I would ensure the 
ground combat vehicle program is given this oversight at the highest 
levels.

    8. Senator Levin. Representative McHugh, are you confident that DOD 
will protect the Army's original FCS funds to start and sustain a new 
ground vehicle modernization program?
    Mr. McHugh. The Office of the Secretary of Defense (OSD) has 
provided an allocation of FCS funding to the Army to develop and 
procure a new ground vehicle, of which the research, development, test, 
and evaluation funding of $100 million was requested in the fiscal year 
2010 budget. Additionally, Secretary Gates demonstrated his commitment 
to the funding of a new ground vehicle when he directed all money for 
FCS in the out years be protected to fund the new vehicle modernization 
program.

    9. Senator Levin. Representative McHugh, if confirmed, what actions 
will you take to ensure that DOD provides the funds as promised?
    Mr. McHugh. I have the utmost confidence that Secretary Gates will 
follow through with the commitments he has made to support the Army's 
new Ground Combat Vehicle initiatives. If confirmed, I would work 
closely with both the OSD Comptroller and OSD Acquisition Executive to 
monitor the allocation of funds for the Ground Combat Vehicle Program.

                     growth of army combat brigades
    10. Senator Levin. Representative McHugh, Secretary Gates had 
previously determined that planned growth of active Army combat 
brigades to 48 was not justified and that end strength growth was best 
used to man existing units before creating more. Accordingly, he 
limited active Army combat brigades to 45. In your view, does this 
additional growth of end strength merit creation of additional combat 
brigades as the Army originally planned, or should the additional 
manpower be used to meet shortfalls in existing and ad hoc unit 
requirements?
    Mr. McHugh. It is my understanding that the 48 Brigade Combat Team 
(BCTs) construct required more soldiers than available with an end 
strength of 547,400. By eliminating three BCTs, those soldiers are 
available to offset requirements existing elsewhere in the force. I do 
not have detailed knowledge whether additional gains in end strength 
are also needed.

    11. Senator Levin. Representative McHugh, in your view, what kind 
of budget pressure will this additional manpower put on other Army 
investments (for example readiness, reset, and modernization) and, if 
confirmed, how would you recommend making budget tradeoffs to afford 
the end strength growth, even though it is temporary?
    Mr. McHugh. In my view, the temporary increase in military end 
strength will put pressure on other Army investments. Nevertheless, 
such an increase is necessary if the Army is to achieve the critical 
objective of reducing stress on the force. If confirmed, I would work 
with the Secretary of Defense and his staff to prioritize requirements 
and identify the potential budget tradeoffs within the Army and DOD to 
support this growth.

                      army science and technology
    12. Senator Levin. Representative McHugh, what do you see as the 
role that Army science and technology (S&T) programs will play in 
continuing to develop capabilities for current and future Army systems?
    Mr. McHugh. It is my understanding that the Army's S&T investment 
strategy is shaped to foster innovation and accelerate/mature 
technology to enable future force capabilities while exploiting 
opportunities to rapidly transition technology to the current force. 
The S&T program must retain the flexibility to be responsive to needs 
identified through current operations and will be a critical part in 
improving capabilities.

    13. Senator Levin. Representative McHugh, in your view, what have 
been the greatest contributions of Army S&T programs to current 
operations?
    Mr. McHugh. In my view, the most significant contribution the Army 
S&T community has offered to current operations is its technical 
expertise coupled with a deep understanding of warfighter needs. It was 
the capability of the Army's Scientist and Engineering workforce that 
enabled the rapid development and deployment of lightweight and 
adaptable armor solutions that address the emerging threats for 
platforms such as the up-armored HMMWV and the MRAP. It is also my 
understanding that Army S&T community quickly developed electronic 
countermeasures to provide jamming capabilities, base protection 
technologies to protect soldiers while in forward operating bases and a 
variety of sensors and situational awareness enablers that have been 
critical to soldiers' efforts in theater.

    14. Senator Levin. Representative McHugh, what metrics would you 
use, if confirmed, to judge the value and the investment level in Army 
S&T programs?
    Mr. McHugh. If confirmed, I would evaluate the speed of transitions 
of technology to the warfighter and their effectiveness; the adoption 
of technology into acquisition programs; and the realignment of 
technology development to changing warfighter needs.

                   energy technology adoption efforts
    15. Senator Levin. Representative McHugh, the Army has an 
opportunity to accelerate the development of fuel efficient tactical 
and support vehicles, leveraging commercial technologies such as fuel 
cells and hybrid engines. The Army should be playing an aggressive role 
in adopting advanced energy vehicles technologies, such as hybrids, for 
use in support functions use at installations. This type of early 
adoption puts the Army in compliance with existing statutes and 
executive orders regarding usage of advanced energy vehicles, reduces 
overall energy consumption costs to the Service, and serves the broader 
policy goal, and accelerating the wider spread adoption of these 
technologies nationally. If confirmed, what kind of investments would 
you make in advanced energy technologies (such as batteries, fuel 
cells, hybrids, etc.) and to make the Army an early adopter of these 
technologies through procurement and demonstration programs--for 
example, using hybrid vehicles or installing alternative energy 
projects on Army posts?
    Mr. McHugh. The Army must be proactive in reducing fossil fuel 
consumption and increasing the use of alternative and renewable fuels 
across its installations. I understand that the Army currently has the 
largest hybrid vehicle fleet in the DOD and plans to lease 4,000 Low-
Speed Electric Vehicles (LSEVs) from the General Services 
Administration over a three-year period to replace fossil fueled 
vehicles. If confirmed, I would support developing renewable energy 
charging capabilities for LSEVs, hybrid plug-ins, and fully electric 
vehicles to recharge their batteries and reduce reliance on local power 
grids. Certainly, efforts to incorporate other emerging technologies 
should continue as hybrid plug-in, fuel cell, solar, and other 
technologies mature and become available and economical. As 
technologies mature, the Army should consider incorporating larger 
advanced energy vehicles into the fleet.

    16. Senator Levin. Representative McHugh, if confirmed, which 
agencies or activities within the Army would you task to take the lead 
in these efforts?
    Mr. McHugh. Based on my understanding of current Army 
organizational responsibilities, the Assistant Secretary of the Army 
(Installations and Environment) is the Army lead in developing policy 
and identifying solutions to the energy challenges today and the 
future. If confirmed, I would assess the Army plans in this area and 
encourage partnerships among Army Commands and agencies, the Department 
of Energy, and private industry to promote and implement new 
technologies and best practices where appropriate.

                 sexual assault prevention and response
    17. Senator Levin. Representative McHugh, numerous cases of sexual 
misconduct involving soldiers in Iraq, Kuwait, and Afghanistan have 
been reported over the last several years. Many victims and their 
advocates contend that they were victimized twice: first by attackers 
in their own ranks and then by unresponsive or inadequate military 
treatment. They asserted that the Army failed to respond appropriately 
by providing basic services, including medical attention and criminal 
investigation of their charges and, ultimately, appropriate 
disciplinary action. What is your understanding of the resources and 
programs the Army has in place in deployed locations to offer victims 
of sexual assaults the medical, psychological, and legal help that they 
need?
    Mr. McHugh. It is my understanding the Army has taken a number of 
significant steps to improve assistance to victims of sexual assault, 
including enhanced recognition of special circumstances that apply to 
deployments. I have been told that the Army has implemented a 
comprehensive sexual harassment/assault response and prevention (SHARP) 
program in deployed locations, to include medical, advocacy, and 
chaplaincy, and law enforcement, investigative and legal services. If 
confirmed, I would ensure that the Army continues to take appropriate 
steps to aid victims of sexual assault, both in garrison and in 
deployed locations.

    18. Senator Levin. Representative McHugh, do you consider the 
Army's current sexual assault policies and procedures, particularly 
those on confidential reporting, to be effective?
    Mr. McHugh. I do not have detailed knowledge to make a complete 
assessment. I know the Army's policies and procedures for restricted 
reporting provide sexual assault victims the opportunity to receive the 
support they need whether or not they decide to file an unrestricted 
report. These efforts need to be robust and ongoing, and if confirmed, 
I would ensure it remains a top priority.

    19. Senator Levin. Representative McHugh, in your view, what is the 
appropriate role for senior military and civilian leaders in the 
Secretariat and the Army staff in overseeing the effectiveness of 
implementation of new policies relating to sexual assault?
    Mr. McHugh. Sexual assault is a crime and has no place in the 
military or our society. The role of any senior leader is to maintain a 
culture and organizational climate where such behavior is not tolerated 
and where victims feel free to report incidents without fear of 
reprisal. If confirmed, I would be vigilant in maintaining this climate 
across the Army and in responding quickly, effectively, and 
appropriately when and where deviations occur.

    20. Senator Levin. Representative McHugh, if confirmed, what 
actions would you take to ensure senior management level direction and 
oversight of departmental efforts on sexual assault prevention and 
response?
    Mr. McHugh. If confirmed, I would work with the Assistant Secretary 
for Manpower and Reserve Affairs, the Chief of Staff, and the Deputy 
Chief of Staff, G-1 to ensure that the Army has in place the 
appropriate protocols to provide senior leaders the information and 
assistance they require to operate and resource the sexual harassment/
assault response and prevention program (SHARP).

  army laboratories and research, development, and engineering centers
    21. Senator Levin. Representative McHugh, what role should Army 
laboratories play in supporting current operations and in developing 
new capabilities to support Army missions?
    Mr. McHugh. It is my understanding that the Army laboratories are 
the S&T performing organizations and have and will continue to play a 
major role in supporting current operations with best capabilities 
available. Through their broad range of investments in key strategic 
S&T areas, they also provide critical new capabilities for soldiers.

    22. Senator Levin. Representative McHugh, if confirmed, how will 
you ensure that the Army laboratories and research and development 
(R&D) centers have the highest quality workforce, laboratory 
infrastructure, resources, and management, so that they can continue to 
support deployed warfighters and develop next generation capabilities?
    Mr. McHugh. If confirmed, I would ensure that the Army laboratories 
and R&D centers recruit and retain the highest quality workforce. I 
would encourage the laboratories to take advantage of the authorities 
they currently have in regard to infrastructure and to work with OSD in 
its current efforts to expand these authorities. Maintaining the 
current level of resources for all the laboratories and embracing best 
practices in regard to management would be given a high priority during 
my tenure.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                      army substance abuse program
    22. Senator McCaskill. Representative McHugh, I introduced S.459, 
the Substance Use Disorders Act of 2009 earlier this year based on 
problems with the Army Substance Abuse Program (ASAP), some of which 
were identified last fall at Ft. Leonard Wood, Missouri. In recent 
years, ASAP has struggled to manage the increasing number of soldiers 
needing treatment, often following stressful deployments to Iraq and 
Afghanistan. In particular, there have been problems with understaffing 
and mismanagement. Commander notification and the lack of 
confidentiality in treatment may discourage servicemembers from seeking 
treatment for fear of disciplinary action. It is important to move from 
a climate of punishment towards a climate that reduces the stigma of 
seeking treatment. Based on S. 459, the Army recently instituted the 
Confidential Alcohol Treatment and Education Pilot program to allow 
complete anonymity for eligible soldiers who self-refer to this 
program. This is a good start. However, I am still concerned whether 
commanders should be notified in all instances of soldiers enrolling in 
ASAP and that the disciplinary option should be on the table no matter 
what. What approach do you take to how discipline should be used with 
troops who ask for help with getting substance use disorders treated?
    Mr. McHugh. I am told that the Army's philosophy is not to punish 
soldiers who come forward with substance abuse issues and that this 
policy applies without regard to what a commander may or may not know 
about a soldier's problem. The Army's substance abuse regulation has 
long included a limited use policy. As I understand it, if a soldier 
comes forward to an ASAP counselor and admits to prior or current 
substance abuse, he or she will receive treatment without fear of 
disciplinary action deriving from that admission. Soldiers are still 
subject to disciplinary action for acts of misconduct while under the 
influence of alcohol or other substances, but they are not subject to 
disciplinary actions based solely on self-admitted substance abuse 
disclosed in the context of seeking treatment. While I believe this 
policy supports a balanced approach to the rehabilitation of our 
soldiers, I am mindful that we must continue to weigh further changes.

    23. Senator McCaskill. Representative McHugh, how does the Army 
plan to address the discipline issue with individuals who have 
sensitive security clearances or military occupation specialties 
(MOSs)? Specifically, how can these individuals be encouraged to seek 
treatment so that they get the help they need so that they can do their 
jobs effectively, rather than hiding substance use disorders that could 
ultimately impact their job performance?
    Mr. McHugh. I am informed that the Army's policy is first to get a 
soldier the help he or she needs. One of the provisions of the 
Confidential Alcohol Treatment and Education Pilot is that soldiers who 
voluntarily seek treatment will not have their enrollment in the 
program recorded or documented in such a way that it is subsequently 
used for other purposes, such as determining that soldier's future duty 
assignments. If safety or national security is at stake, a soldier may 
be reassigned, without repercussion, to other duties during the course 
of his or her participation in the treatment program.

    24. Senator McCaskill. Representative McHugh, in Representative 
McHugh's prepared responses for the committee, he says that, ``It 
appears that there is a shortage of ASAP counselors at some 
installations.'' Indeed, the shortage of counselors is systemic to the 
Army. We even have whistleblowers at Ft. Leonard Wood in Missouri 
coming forth with concerns about the ASAP. What are the Army's views on 
the adequacy of ASAP counselors in the Army, and what specific measures 
does the Army plan to mitigate the shortage and lack of resources?
    Mr. McHugh. I am informed that the Army leadership is very 
cognizant of the shortage of counselor personnel in both the civilian 
and military sectors nationwide. This shortage often can be attributed 
to military and civilian sector competition for the services of an 
already constrained number of these care providers. The Army has 
instituted a number of incentives, including payment of recruiting 
bonuses, relocation costs, and retention bonuses, to attract qualified 
counselors. Further, the Army has secured direct hire authority to 
expedite the employment of these personnel.

    25. Senator McCaskill. Representative McHugh, an area of substance 
abuse disorders in the Army that remains understudied and misunderstood 
is that of prescription drug abuse, particularly for those soldiers who 
are deployed in theater in Iraq and Afghanistan. Often these 
individuals are easily prescribed drugs that can be extremely addictive 
and harmful over time. What is the Army doing to include prescription 
drug abuse in the ASAP, and what data is available on the numbers of 
soldiers who are referred for treatment for prescription drugs in the 
Army?
    Mr. McHugh. It is my understanding that treating soldiers for 
prescription drug abuse is, and has always been, an important part of 
the Army Substance Abuse Program. If confirmed, I would continue such 
programs to ensure every soldier with a substance abuse problem has the 
opportunity to receive the care he or she needs. I am told that 
reported Army rates of abuse for pain killers is about 5 percent of all 
cases.
                                 ______
                                 
                Questions Submitted by Senator Kay Hagan
                             army uniforms
    26. Senator Hagan. Representative McHugh, whether soldiers are 
serving overseas or training within the continental United States, in 
preparation for deployment, they need uniforms that are capable of 
defending against insect borne diseases such as Lyme disease and Rocky 
Mountain spotted fever. After over 15 years of study and research, the 
Army decided to adopt the factory treatment of uniforms with 
permethrin, as the most effective solution, to protect soldiers against 
insect borne diseases. The adoption of this technology has been 
recommended by the Army's subject matter experts, including the Surgeon 
General and Uniform Board. However, contractual management, logistics, 
and funding jeopardize delays in providing the Army with factory 
treated permethrin uniforms until 2012.
    In order for this technology to be properly implemented and 
supervised, I believe that the Army needs to establish the protocol 
that the contract management be established directly between the Army 
and the uniform treatment vendor. This is a very important difference 
from the Defense Logistics Agency/Defense Supply Center Philadelphia 
(DLA/DSCP) practice of relegating the oversight of this technology to a 
subcontract through the existing cut and sew uniform manufacturers. A 
direct contract to treatment vendors can provide oversight incentives 
to continue to improve the quality and the safety of this program.
    This is a complex technology that is federally regulated by the 
Environmental Protection Agency (EPA). The EPA recognizes that each 
vendor's treatment has different characteristics particularly regarding 
efficacy and safety. Assigning responsibility of supervising the 
production of this product through the DLA/DSCP process would 
negatively impact the quality, safety, and efficacy of the product. 
Moreover, inserting an unrelated vendor into the process adds an extra 
layer of cost, as the cut and sew vendor adds margin to the cost from 
the treatment vendors.
    Please provide your thoughts on establishing the protocol that 
contract management of Army permethrin treated uniforms be established 
directly between the Army and the uniform treatment vendor.
    Mr. McHugh. I am unable to provide a detailed assessment at this 
time. If confirmed, I would fully evaluate this issue.

    27. Senator Hagan. Representative McHugh, in accordance with the 
Acquisition Reform Bill, contractual management of Army permethrin 
treated uniforms between the Army and the uniform treatment vendor 
saves money as it removes the ``middle man'' (cut and sew vendors) from 
adding additional margin of costs. Can you please provide your 
thoughts?
    Mr. McHugh. I am unable to provide a detailed assessment at this 
time. If confirmed, I would evaluate this issue.

    28. Senator Hagan. Representative McHugh, where will the money come 
from within the Army budget to fund the treatment of all Army combat 
uniforms with permethrin?
    Mr. McHugh. At present, I am not familiar with the Army's plans 
with respect to this subject. If confirmed, I would evaluate this 
issue.

                      upgrading m24 sniper rifles
    29. Senator Hagan. Representative McHugh, Army sniper teams in Iraq 
and Afghanistan utilize the M24 sniper rifle to respond to improvised 
explosive devices and insurgent ambushes. The weapons system is 
outdated, and soldier input has propelled the Army to determine that it 
is necessary and cost-effective to upgrade 3,000 M24s to meet the 
changing operational requirements on the ground and counter threats, 
most notably: engage targets during times of limited visibility and at 
night; increase range from 800 to 1,200 yards; improve ergonomics and 
stock configuration to enable maneuverability within vehicles and small 
spaces within urban areas; and increase concealment when transporting 
and operating the weapon.
    Congress appropriated $3.4 million in the Defense Appropriations 
Act for Fiscal Year 2009 for the Army to upgrade the M24 sniper rifle 
using operation and maintenance funding and an existing refurbishment 
contract with the company Remington, to do an engineering change 
proposal (ECP). The fiscal year 2009 funding was moved to procurement, 
making an ECP under the existing contract no longer feasible. The House 
Defense Appropriations Bill for Fiscal Year 2010 would appropriate an 
additional $3.0 million for M24 upgrades. Congress is appropriating the 
funds in response to validated operational needs statements from Army 
units, who require an upgraded M24 sniper rifle for operations in 
theater. What are the Army's plans to expedite the M24 upgrade to meet 
the immediate needs of the Army's sniper teams?
    Mr. McHugh. I do not have detailed knowledge on this issue. It is 
my understanding the immediate needs of the Army's sniper teams are 
being met by the ongoing fielding of the most current system.

    30. Senator Hagan. Representative McHugh, what can be done to 
provide upgraded M24s to units that have an urgent need and is there 
anything we need to do in Congress to help with the upgrade?
    Mr. McHugh. I am unable to provide a detailed assessment at this 
time. If confirmed, ensuring our sniper team's needs are fully met 
would be a top priority.

    31. Senator Hagan. Representative McHugh, given that Remington owns 
the technical data package for the M24, how will the Army compete the 
upgrade?
    Mr. McHugh. I do not have detailed knowledge on this matter but it 
is my understanding the technical data of the M24 will not be disclosed 
during the competition to select a vendor to upgrade sniper weapons 
that are currently fielded.

                         m4/replacement carbine
    32. Senator Hagan. Representative McHugh, on July 1, 2009, the Army 
received control of the technical data package (design rights) to the 
existing M4 carbine weapons system. Prior to this transfer, Colt 
Defense LLC had been the sole source provider of the M4 carbine for the 
U.S. military for the past 15 years, due to a legal settlement between 
the Federal Government and Colt. The last of the 473,000 M4 weapons is 
expected to be fielded in 2010. It is important that we replace the M4 
with a new state-of-the-art weapons system that meets the operational 
requirements of our military in theater. Is the Army committed to a 
full and open competition for the follow-on weapon to the M4?
    Mr. McHugh. I am unaware of any currently planned competition to 
replace the M4. If confirmed, I would ensure all acquisition program 
competitions are performed fairly and openly.

    33. Senator Hagan. Representative McHugh, please provide your 
thoughts on updating the M4 carbine requirement and the solicitation 
process for a future weapon.
    Mr. McHugh. I do not have detailed knowledge of this subject. If 
confirmed, I would ensure the competition for every acquisition program 
is conducted fairly and openly.

    34. Senator Hagan. Representative McHugh, does the Army plan on 
awarding the replacement weapon contract to one manufacturer or 
dividing it among several companies?
    Mr. McHugh. I do not have detailed knowledge of this subject. If 
confirmed, I would ensure the competition for every acquisition program 
is conducted fairly and openly.

               military housing privatization initiative
    35. Senator Hagan. Representative McHugh, Congress established the 
Military Housing Privatization Initiative (MHPI) in 1996 as a tool to 
help the military improve the quality of life for its servicemembers by 
improving the condition of their housing. The MHPI was designed and 
developed to attract private sector financing, expertise, and 
innovation to provide necessary housing in a more efficient manner. OSD 
has delegated to the Military Departments the implementation of MHPI 
and authorized them to enter into agreements with private developers 
selected in a competitive process.
    Financing for military housing privatization in the current market 
is challenging and entails high relative lending rates of interest. 
This impedes the restricting of existing military housing transactions, 
prevents the construction of new military family housing, and limits 
the scope of work. Transactions such as the one the Army agreed to 
involving construction of privatized military housing in South Korea is 
one of those projects affected. Has the current financial market 
negatively impacted the Army's ability to move forward with any of its 
privatization initiatives? If so, how can we assist the Army?
    Mr. McHugh. Within CONUS, most of the Army's MHPI projects have 
been privatized, and the Army has successfully obtained initial debt 
funding. However, due to the current poor financial climate, two of the 
final RCI projects were not able to obtain suitable loan and investor 
funding. Those projects were still privatized, but development 
schedules were adjusted to delay construction until the market improves 
and debt funding is more favorable. Other projects have had to scale 
back due to reduced sources of debt funding and increased costs 
associated with debt payments.
    Existing MHPI authorities do not currently extend to overseas 
locations like Korea. The Humphreys Housing Opportunity Project (HHOP) 
cannot take advantage of MHPI tools like loan guarantees, direct 
Federal loans, contribution of funds, or transfer of property. 
Additionally, the HHOP has unique elements associated with Status of 
Forces Agreement issues and Korean law. If confirmed, I would examine 
if the Army having the authority to utilize MHPI tools is needed for 
overseas projects.

    36. Senator Hagan. Representative McHugh, the financial crisis in 
the commercial mortgage backed securities market has negatively 
impacted the traditional firms that have credit enhancement 
capabilities to the private activity bonds used to finance MHPI 
projects. Has the Army approached Fannie Mae or Freddie Mac with this 
opportunity?
    Mr. McHugh. It is my understanding that the Army has worked with 
underwriters to discuss opportunities for credit enhancement with 
government-sponsored enterprises such as Fannie Mae and Freddie Mac, as 
well as private entities such as Berkshire Hathaway, Assured Guarantee, 
and others.

    37. Senator Hagan. Representative McHugh, the MHPI program 
authority is slated to expire in 2010. What can we do to assist the 
Army and DOD to ensure that this program remains in effect after 2010?
    Mr. McHugh. It is my understanding that the authorities outlined in 
the National Defense Authorization Act for Fiscal Year 1996 (Public Law 
104-106, February 10, 1996) Section 2885 were made permanent by the 
National Defense Authorization Act for Fiscal Year 2005 (Public Law 
108-375 (October 28, 2004) Section 2805 ``Repeal of Limitations.''
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                         army family readiness
    38. Senator Begich. Representative McHugh, in your answers to the 
advance policy questions to the committee, you continuously state the 
importance of care for soldiers and their families. What do you 
consider to be the most important family readiness issues?
    Mr. McHugh. In my view, the Army's most important family readiness 
issues are related to repeated deployments and to the increased stress 
on soldiers and families that results from high operational tempo and 
inadequate dwell times at home between deployments. Also, I understand 
that family issues such as access to health care, spouse employment and 
childcare are of significant concern.

    39. Senator Begich. Representative McHugh, if confirmed, how would 
you ensure that family readiness needs are addressed and adequately 
resourced?
    Mr. McHugh. I recognize that soldiers and their families have made, 
and continue to make, significant personal sacrifices in support of our 
Nation. In late 2007, the Army unveiled the Army Family Covenant, a 
commitment to provide soldiers and their families--Active, Guard, and 
Reserve--a quality of life commensurate with their level of service. I 
fully support the Covenant's commitment to soldiers and families and, 
if confirmed, would continue efforts to improve family readiness 
through the Family Covenant. I would seek to further the success of 
Family Readiness Groups in providing important support and assistance 
to families, while serving as a network of communication between family 
members, the chain of command, and community resources. As the former 
Chair and Ranking Member of the House Armed Services Personnel 
Subcommittee, I endeavored to ensure that military families received 
the support and resources they required. If confirmed, I am committed 
to continuing my advocacy on behalf of Army families.

                            army facilities
    40. Senator Begich. Representative McHugh, the simultaneous 
implementation of force structure initiatives in the Army has exceeded 
capacity of existing infrastructure at military installations. In order 
to provide enough living and working space for servicemembers, 
temporary facilities are being used for barracks, offices, and 
equipment maintenance facilities. In addition, barracks at military 
installations are in deteriorating condition due to lack of adequate 
investment. As a result, the committee mandated in the report 
accompanying S.1390 (S. Rept. 111-35) that the Secretary of Defense 
provide a report to Congress outlining a strategy to replace 
relocatable facilities and ensure adequate investment in 
infrastructure. What is your assessment of the Army's infrastructure 
investment strategy?
    Mr. McHugh. I do not have sufficient information at this time to 
make an assessment. If confirmed, I would undertake to assess the 
sufficiency of the Army's current infrastructure investment strategy 
and implementation plan.

    41. Senator Begich. Representative McHugh, if confirmed, what 
actions would you propose to reduce the backlog and improve Army 
facilities?
    Mr. McHugh. If confirmed, I would support an investment strategy to 
ensure that the infrastructure backlog is addressed. I would also seek 
support from the Secretary of Defense and Congress for the President's 
budget request for Army installations and facilities.

                    alaska in army strategic posture
    42. Senator Begich. Representative McHugh, Alaska is home to Fort 
Richardson, Fort Wainwright, and Fort Greely. In addition to those Army 
installations, Alaska is home to Eielson and Elmendorf Air Force Bases 
and the Donnelly Training Range. Alaska is a strategic location with 
joint forces, extensive joint training infrastructure, unencumbered air 
and land space, and a robust deployment infrastructure. The community 
provides and supports a strong family environment. What is your 
assessment of the current and future joint training and stationing 
opportunities Alaska provides for the Army?
    Mr. McHugh. My assessment is that Alaska provides extraordinary 
training and stationing opportunities for not only the Army but the 
other Services as well. The mountainous terrain, large and first-rate 
range facilities, and the cold weather climate provide an essential and 
unique training and stationing environment for units. These 
opportunities, combined with the state's strategic location, enable 
Army forces in Alaska to support the Army's worldwide mission, as well 
as to provide essential support to the Pacific and Northern Commands 
(PACOM and NORTHCOM). In addition, it is my understanding that the 
local communities adjacent to Army bases in Alaska provide exceptional 
support to Army soldiers and their families. For these reasons, I 
believe that Alaska will continue to provide training and stationing 
opportunities for the U.S. Army.

    43. Senator Begich. Representative McHugh, please describe the role 
of Alaska in the Army's overall strategic posture.
    Mr. McHugh. In addition to supporting the Army's worldwide mission 
in places such as Iraq and Afghanistan, forces assigned in Alaska 
support the combatant commanders of both the PACOM and NORTHCOM. I have 
been advised that as to PACOM, Army forces in Alaska provide essential 
capabilities to meet the requirement for global engagement and rapid 
deployment throughout that theater's enormous area of responsibility. 
With regard to NORTHCOM, Army forces in Alaska assist in the homeland 
defense mission. I believe that Alaska's strategic location, as well as 
the State's robust training and deployment infrastructure, make an Army 
presence in Alaska a critical component of the Army's overall strategic 
posture.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                           army modernization
    44. Senator Inhofe. Representative McHugh, if confirmed as the 
Secretary of the Army, how will you prioritize Army vehicle 
modernization?
    Mr. McHugh. I understand the Army has priorities to improve 
soldiers' capabilities to accomplish their missions more effectively, 
especially in the areas of surveillance assets and force protection. If 
confirmed, I would review the Army's modernization strategy to ensure 
the Army has a sound, synchronized plan. I would place special emphasis 
on force protection, mobility, networked communications, and lethality 
capabilities needed for full spectrum warfare.

    45. Senator Inhofe. Representative McHugh, in your view, how did 
the cancellation of the FCS Manned Ground Vehicle program impact the 
acquisition process of the Army's new Army BCT Modernization Strategy?
    Mr. McHugh. It is my understanding that with the cancellation of 
the FCS manned ground vehicle, the Army is transitioning to a BCT 
modernization strategy. Instead of focusing on a few FCS BCTs, the Army 
plans to field FCS spin out technology to all 73 BCTs, thus enhancing 
the effectiveness of all formations.

    46. Senator Inhofe. Representative McHugh, what do you believe is a 
reasonable and realistic procurement timeline for a new line of Army 
combat vehicles? Is 5 to 7 years realistic?
    Mr. McHugh. I think that the reasonableness of the timeline will 
depend on the analysis of the capabilities and requirements new combat 
vehicles would need to provide. I understand that the Army is currently 
conducting requirements analysis to determine the appropriate 
requirements. At this time I am not yet in a position to offer an 
informed assessment of these efforts.

    47. Senator Inhofe. Representative McHugh, what are your personal 
feelings regarding the Secretary of Defense's cancellation of FCS/
ground vehicles?
    Mr. McHugh. I strongly support Secretary Gates' decision to 
initiate a reevaluation of ground vehicles to ensure the most modern 
equipment is available to our soldiers.

    48. Senator Inhofe. Representative McHugh, did you have similar 
conversations with the President or Secretary Gates leading up to your 
nomination concerning Army modernization?
    Mr. McHugh. My conversations with the President were not focused on 
specific programs but rather the overarching issues, concerns, and the 
challenges that lie ahead for the Army. Before my nomination, I had 
been approached as part of my duties as the Ranking Member of the House 
Armed Services Committee and did have a discussion with the Secretary 
of Defense.

  heavy brigade combat team program and paladin integrated management
    49. Senator Inhofe. Representative McHugh, with the cancellation of 
FCS and delay of the Non-Line-of-Sight Cannon/Next Generation Cannon, 
do you believe that the Paladin Integrated Management (PIM) program 
should receive increased priority within the Army?
    Mr. McHugh. Although I do not have detailed knowledge on this 
subject, I believe the Paladin program is very important to the Army's 
overall modernization efforts.

    50. Senator Inhofe. Representative McHugh, how concerned are you 
that our soldiers are using combat vehicles designed in the 1940s-1950s 
and will continue using them until 2050?
    Mr. McHugh. My commitment to the American soldier is to ensure they 
have the best equipment, in the right amounts, to accomplish all their 
missions. The Army has constantly modernized its equipment by the use 
of technology upgrades, recapitalization, and service life extension 
programs. While I believe these incremental modernization upgrade 
efforts are not a substitute for the development of a new system, these 
types of solutions are necessary until the Army determines the 
modernization strategy for its future ground combat vehicle and related 
platforms.

    51. Senator Inhofe. Representative McHugh, are you committed to the 
Army's PIM program to update our artillery fleet?
    Mr. McHugh. Although I do not have detailed knowledge on this 
subject, I believe the Paladin program is very important to the Army's 
overall modernization efforts.

                         reset/recapitalization
    52. Senator Inhofe. Representative McHugh, what are your concerns 
with the high usage rates of Army wheeled and combat vehicles in Iraq 
and Afghanistan?
    Mr. McHugh. The increased `wear and tear' on equipment from the 
harsh wartime environments is staggering. I'm informed that the Army's 
truck fleet is experiencing usage rates that are five to six times the 
peacetime rates, and this has been further exacerbated by the heavy 
armor kits added to enhance force protection. The depots and commercial 
industrial base has surged to meet the extra demands from these usage 
rates, however, reversing the impact of these many years of 
extraordinary wear and tear on the Army's equipment will take time and 
dedicated resources.

    53. Senator Inhofe. Representative McHugh, as we draw down in Iraq, 
do you believe it is important to adequately reset, and upgrade where 
appropriate, our combat equipment?
    Mr. McHugh. I believe the Army needs to continue to adequately 
reset equipment while upgrading where appropriate. While the equipment 
is in maintenance, I believe the Army should take advantage of the 
opportunity to ensure the equipment is brought to the appropriate 
configuration and to use the most up-to-date replacement parts 
available. Though reset is not intended as a modernization program, the 
maintenance operations afford a cost-effective opportunity to insert 
technologies and capabilities as fitting.

                              end strength
    54. Senator Inhofe. Representative McHugh, how will you recommend 
DOD fund the 22,000 soldier end strength increase? Should it be 
resourced internally or externally from the Army budget?
    Mr. McHugh. It is my understanding that Army will internally fund 
the fiscal year 2009 costs associated with the temporary end strength 
increase, and that DOD will amend the fiscal year 2010 overseas 
contingency operations budget request to fund temporary end strength 
increased costs.

    55. Senator Inhofe. Representative McHugh, are you concerned that 
this end strength increase will hinder other Army priorities like 
modernization and equipment reset?
    Mr. McHugh. I am aware of the fiscal pressures faced by the 
Department and our Nation as a whole. I believe the temporary increase 
in Army end-strength is critical to sustain manning levels of deploying 
forces and reduce stress on our soldiers and their families. During 
this time, the Army needs to continue to reset equipment while 
modernizing the force, which is critical to maintain capabilities now 
and into the future. These important requirements will most decidedly 
put pressure on DOD fiscal resources and force difficult and 
significant strategic choices.

                               personnel
    56. Senator Inhofe. Representative McHugh, if confirmed as the 
Secretary of the Army, what changes will you implement that relieve the 
tremendous strain on soldiers and the deployment process?
    Mr. McHugh. I believe the temporary increase in end strength, a 
reduction in demand in the Iraqi theater, and the execution of the Army 
Force Generation model should result in more dwell time between 
deployments. This will allow the force to reset, create greater 
deployment predictability, and relieve some of the tremendous strain on 
soldiers and their families. If confirmed, I would ensure these are 
priority efforts until the Army has reached the right balance between 
deployments and dwell time.

    57. Senator Inhofe. Representative McHugh, what will the effects on 
the Army Force Generation cycle be if the Iraq drawdown is delayed 
while we simultaneously double our troop strength in Afghanistan?
    Mr. McHugh. It is my belief that a delay in the Iraq drawdown would 
increase the global commitment of forces and necessarily decrease the 
dwell time of select units as well as the time available to restore 
these units to a deployable condition prior to their next deployment. 
Although the temporary increase in end strength would help, I think it 
likely that the Army would experience a corresponding increase in the 
strain on our soldiers and their families.

    58. Senator Inhofe. Representative McHugh and Dr. Westphal, what 
level of troop increase in Afghanistan or Iraq would cause a change to 
the current dwell time goal of 1:2?
    Mr. McHugh. It is my understanding that current projections of the 
global commitment of Army forces requires the availability of 20 
trained and ready BCTs in order to achieve a 1:2 Active component and 
1:4 Reserve component dwell-to-deployment ratio. I believe any increase 
in the commitment of forces might endanger these desired dwell-to-
deployment ratios.

                           threat preparation
    59. Senator Inhofe. Representative McHugh, what threats do you 
think the Army should be postured for and how should we equip and 
structure our force accordingly?
    Mr. McHugh. In an era of persistent conflict, the Army must be 
prepared to operate across the full spectrum of conflict. Formations 
will conduct simultaneous offense, defense, and stability operations 
while facing hybrid threats from networked enemies embedded among the 
local population. These threats will possess a wide range of military 
capabilities and some advanced technologies. Accordingly, in my view, 
the Army must continue to review its force mix to ensure it meets 
combatant commanders' needs in the current and foreseeable operational 
environments. It is my understanding that the Army incorporates 
approved changes to existing unit structure or capabilities through the 
Force Design Update process, and brings in new capabilities that 
address gaps or shortfalls through several force management processes. 
If confirmed, I would work to maintain this flexibility in adapting the 
force to provide a supply of capabilities on a rotational basis to meet 
the demands of our combatant commanders.
    In addition, I have been informed that a significant effort is 
underway to review the Army's force structure as part of the 
Quadrennial Defense Review and Total Army Analysis 2012-2017. This 
review will continue to focus on capabilities across the full spectrum 
of conflict in order to meet the challenges of an uncertain future 
security environment. Given those uncertainties, the Army must provide 
a balanced mix of versatile, expeditionary, agile, and sustainable 
forces. These include BCTs, functional and multi-functional support 
brigades, enabling units, and responsive institutional support to give 
Joint Forces Commanders an array of options. In my view, the Army's 
equipping strategy must ensure that soldiers have the right equipment 
amounts, types, and modernization to meet their mission requirements 
across the full spectrum of operations--whether in combat, training to 
go to combat, operating as part of the Army's generating force, or 
conducting homeland defense and defense support to civil authorities' 
missions.

    60. Senator Inhofe. Representative McHugh, do you believe there is 
a deterrence value in having an Army equipped with the most advanced 
equipment available?
    Mr. McHugh. Measuring the deterrence value of any capability is 
difficult given this value is largely determined by those actors 
deterred. The more advanced the military capabilities of the United 
States, the less likely those other states would mount a direct 
military challenge to the United States or its allies. Moreover, the 
predominance of ``asymmetric warfare'' in the conflicts in Iraq and 
Afghanistan demonstrates that even non-state actors that cannot be 
deterred are forced to devise unique ways of overcoming the 
overwhelming military superiority of the United States. Continuing to 
modernize the force with the most advanced equipment available will 
best ensure that the Army maintains its all-important advantage in 
military capabilities over the mid- and long-terms, and, thereby, 
serves a vital deterrence function.

    61. Senator Inhofe. Representative McHugh, how should the Army be 
postured to counter the full spectrum of threats in the near- and far-
term as well as be able to provide combatant commanders the forces they 
need?
    Mr. McHugh. I believe the institutional Army's recruiting, 
training, equipping, and other functions must focus on the objective of 
ensuring that forces provided to the combatant commanders for 
operational employment are prepared to operate across the full spectrum 
of conflict to counter an increasingly adaptive, technologically 
sophisticated, and elusive enemy.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                      water rights and allocation
    62. Senator Sessions. Representative McHugh, what is the national 
purpose for moving forward with updating the water manuals before the 
Governors have an opportunity to reach a compact in light of the recent 
court ruling in the U.S. District Court-Middle District of Florida 
(MDL-1824 Tri-State Water Rights Litigation)?
    Mr. McHugh. Although I have not been fully briefed on all of the 
details, I am keenly aware of both the sensitive and critical nature of 
this issue. I began my public service in State and local government and 
I know the importance of water. It is my understanding that the parties 
involved are committed to working together toward a solution that will 
address the interests and concerns of all to the maximum extent 
possible. If confirmed, I would personally monitor this issue to ensure 
that the solution is consistent with the law and the most equitable 
resolution of this matter. I would engage the Army Corp of Engineers to 
provide whatever assistance is needed to the Governors and the 
Congressional delegations of the states involved to bring about an 
agreed upon resolution to this long standing issue.

    63. Senator Sessions. Representative McHugh, given the recent court 
case and the potential for the States to meet a mutually agreeable 
solution on water allocation, what role, if any, will the Army Corps of 
Engineers play in these negotiations?
    Mr. McHugh. If confirmed, I would work closely with Assistant 
Secretary of the Army for Civil Works and fully support that office's 
efforts as well as those of the Army Corps of Engineers to provide 
technical expertise and facilitate the development of a mutually 
agreeable solution that is consistent with the law. In the formulation 
of an appropriate way ahead, I would work closely with the Governors 
and congressional delegations of the States involved.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
                 kuwait and gulf link transport company
    64. Senator Martinez. Representative McHugh, LTC Dominic ``Rocky'' 
Baragona died while deployed in Iraq on May 19, 2003, in a car accident 
with a tractor-trailer near the Kuwaiti border. Lieutenant Colonel 
Baragona was returning home from his deployment. The tractor-trailer 
truck, owned by Kuwait & Gulf Link Transport Company (KGL), a Kuwaiti 
multinational firm, crossed the highway and struck Lieutenant Colonel 
Baragona's HUMVEE. KGL was a large Kuwaiti company, organized under 
Kuwaiti law and doing business across the Middle East. Its business and 
the business of its successor companies include the execution of 
substantial contracts with the U.S. Army. After Lieutenant Colonel 
Baragona's death, the U.S. Army conducted an accident investigation 
report concluding KGL's negligence caused the traffic accident which 
killed Lieutenant Colonel Baragona. The U.S. Army required KGL certify 
that it had purchased third party liability insurance for just this 
sort of accident. Please explain how as the Secretary of the Army you 
will assist families of U.S. servicemembers in accessing these 
insurance policies purchased for their benefit and please explain how 
you will lead the Army in holding negligent contractors accountable for 
their actions.
    Mr. McHugh. If confirmed I would seek to ensure that the Army 
faithfully complies with the Freedom of Information Act, in responding 
to all requests for information related to insurance policies as 
required by Federal law. It is my opinion that if contractors are doing 
business with the Government, we must look carefully at making them 
subject to and under the jurisdiction of the laws of the United States. 
If confirmed, I would do everything within my power to ensure all 
contractors are held accountable in accordance with law and 
regulations.

    65. Senator Martinez. Representative McHugh, in Baragona v. Kuwait 
& Gulf Link Transport Company, the Court found KGL liable to the 
Baragona family for approximately $5 million. KGL has appeared in court 
to argue that the court does not have jurisdiction over KGL because it 
is a Kuwaiti company. Contractors, including foreign contractors, play 
an important part in the success of the U.S. military, but it's 
important that the contractors act responsibly and conform to the 
contracting requirements of DOD. The Army requires the purchase of 
insurance by all of its contractors, foreign and domestic, but this is 
pointless if the foreign contractors are able to assert that they 
shouldn't have to compensate accidental death or injury claims because 
of their lack of presence in the United States. As Secretary of the 
Army, how will you address contractor responsibilities outside of the 
United States and what recommendations do you have in changing 
contracting rules to ensure compliance with U.S. Court systems?
    Mr. McHugh. Since I do not have in depth knowledge of this case, I 
cannot make any specific recommendations. It is my understanding, 
however, that contractors doing business outside of the United States 
are to be held to the same standards of conduct as those performing in 
the United States. The Federal Acquisition Regulation (FAR) was changed 
in December 2008 (FAR 3.10) to require contractors overseas to 
institute the same ethics and compliance programs as those located in 
the United States. Contractors failing to accept service of process or 
otherwise willfully evading litigation can be debarred under the 
Government's suspension and debarment regulations. If confirmed, I 
would work closely with the Department of Justice on issues such as 
this involving the Federal Rules of Civil Procedure and the U.S. Court 
system.

    66. Senator Martinez. Representative McHugh, do you believe the 
U.S. Army is able to facilitate a resolution in this kind of case?
    Mr. McHugh. I understand that the Army must maintain neutrality in 
litigation between third parties. If confirmed, I would ensure that the 
Army provides materials sought in litigation in an impartial manner in 
accordance with law and regulations. I would hope having access to 
information will better enable the parties to make informed decisions 
as to the relative merits of their positions. It is my understanding 
that the Army defers to the expertise of the Department of Justice in 
matters involving the U.S. Court system and for the appropriateness of 
the United States participating in a particular lawsuit.

    67. Senator Martinez. Representative McHugh, what are your thoughts 
on S.526, the ``Lieutenant Colonel Dominic `Rocky' Baragona Justice for 
American Heroes Harmed by Contractors Act''?
    Mr. McHugh. I strongly support the principle that contractors doing 
business with the Government, including contractors overseas, must be 
held accountable for their actions. If confirmed, I would act to ensure 
contractors are held responsible in accordance with law and 
regulations.

             military housing and privatization initiative
    68. Senator Martinez. Representative McHugh, the MHPI program is 
slated to expire in 2010. If confirmed, what do you see as the future 
of the MHPI program?
    Mr. McHugh. It is my understanding that the authorities outlined in 
the National Defense Authorization Act for Fiscal Year 1996 (Public Law 
104-106, February 10, 1996) Section 2885 were made permanent by the 
National Defense Authorization Act for Fiscal Year 2005 (Public Law 
108-375 (October 28, 2004) Section 2805 ``Repeal of Limitations.''

    69. Senator Martinez. Representative McHugh, the financial crisis 
in the Commercial Mortgage Backed Securities market has negatively 
impacted the firms which back Private Activity Bonds used to finance 
MHPI projects. Has the Army approached Fannie Mae, Freddie Mac, or any 
other Government-sponsored enterprises with this opportunity? If so, 
what can this committee do to assist the Army in this process?
    Mr. McHugh. It is my understanding that the Army has worked with 
underwriters to discuss opportunities for credit enhancement with 
government-sponsored enterprises such as Fannie Mae and Freddie Mac, as 
well as private entities such as Berkshire Hathaway, Assured Guarantee, 
and others. If confirmed, I would work closely with Congress to 
identify any additional authorities as needed.
                                 ______
                                 
    [The nomination reference of Hon. John M. McHugh follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      July 6, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John M. McHugh, of New York, to be Secretary of the Army, vice 
Preston M. Geren.
                                 ______
                                 
    [The biographical sketch of Hon. John M. McHugh, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Hon. John M. McHugh
    Congressman John McHugh is currently serving his ninth consecutive 
term in the U.S. House of Representatives. He represents New York's 
23rd Congressional District, home to Fort Drum and the 10th Mountain 
Division (Light Infantry).
    Congressman McHugh was the ranking member (lead Republican) of the 
House Armed Services Committee. Before becoming ranking member of the 
full committee, Congressman McHugh was first the chairman of the 
Morale, Welfare, and Recreation Panel and then chairman and later 
ranking member of the committee's Subcommittee on Military Personnel. 
Congressman McHugh is also a senior member of the House Oversight and 
Government Reform Committee. During the 109th and 110th Congress, 
Congressman McHugh served as a member of the House Permanent Select 
Committee on Intelligence.
    Representative McHugh began his public service career in 1971 in 
his hometown of Watertown, where he served for 5 years as a 
confidential assistant to the city manager. Thereafter, he joined the 
staff of New York State Senator H. Douglas Barclay, where he served as 
Chief of Research and Liaison with local governments for 9 years. 
Succeeding Senator Barclay in 1984, Representative McHugh served four 
terms in the legislature's upper house before coming to Congress.
    Representative McHugh is a resident of Pierrepont Manor in 
Jefferson County, NY. Born on September 29, 1948, the Congressman was 
educated in Watertown public schools, graduating in 1966. He received a 
B.A. in Political Science from Utica College of Syracuse University in 
1970, and earned a Master's Degree in Public Administration from the 
State University's Nelson A. Rockefeller Graduate School of Public 
Affairs in 1977.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. John M. 
McHugh in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John M. McHugh.

    2. Position to which nominated:
    Secretary of the Army.

    3. Date of nomination:
    July 6, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 29, 1948; Watertown, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced: Katharine T. Sullivan.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Watertown High School, Watertown, NY; 1962-1966; Diploma, 1966.
    Utica College of Syracuse, Utica, NY; 1966-1970; BA, Political 
Science, 1970.
    The University of Albany, SUNY, Albany, NY; 1976-1977; MA, Public 
Administration, 1977.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Member of Congress, U.S. House of Representatives, January 1993 to 
present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Ex Officio Member of the Board of Visitors for the U.S. Military 
Academy at West Point. 10 U.S.C. Sec. 4355.
    Ex Officio Member of the Board of Visitors for the Western 
Hemisphere Institute for Security Cooperation. 10 U.S.C. Sec. 2166.
    By nature of my service in Congress, I served on several 
congressional caucuses and task forces focusing on health care, social 
security, agriculture and rural affairs, the environment, foreign 
trade, veterans, tourism, and senior citizens.
    Member of the New York State Senate, January 1985-December 1992.
    Chief of Research, Liaison with Local Governments, New York State 
Senator H. Douglas Barclay, 1975-1984.
    Confidential Assistant to the City Manager, Watertown, 1971-1975.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Ex Officio Member of the Council of Directors for the Henry M. 
Jackson Foundation for the Advancement of Military Medicine. 10 U.S.C. 
Sec. 178.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Jefferson County Farm Bureau; Chowder and Marching Society; Capitol 
Hill Club.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Member of the New York State Senate, January 1985-December 1992.
    Member of Congress, January 1993 to present.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    See 13(a) and the Committee to Elect McHugh.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None as an individual, however my campaign committee has made 
political contributions. See attached list. [Nominee responded and the 
information is contained in committee's executive files.]

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Utica College, Syracuse University, 1986-1987, Circle of 40 
Distinguished Alumni Achievement Award.
    State University of New York, Albany, Congressional Honor Roll 
Award.
    Utica College, Syracuse University, 2007 Outstanding Alumni Award.
    I am also the recipient of numerous awards and citations from 
various veteran service organizations, military associations, and 
military honors related to my service in Congress.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Fill the Military's `Holes in the Yard' '' The Hill (September 
29, 2008).
    I have also posted several columns on my U.S. House of 
Representatives Web site, http://mchugh.house.gov/. These are:

          ``Honoring Our Veterans,'' November 11, 2008.
          ``A Memorial Day Gift,'' May 21, 2008.
          ``The Seeds of Freedom's Tree,'' May 27, 2007.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Please see attached copies of delivered speeches as well as 
statements in committee and on the floor of the U.S. House of 
Representatives.
    [Nominee responded and the information is contained in committee's 
executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    John M. McHugh.
    This 8th day of July, 2009.

    [The nomination of Hon. John M. McHugh was reported to the 
Senate by Chairman Levin on August 4, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 16, 2009.]
                              ----------                              

    [Prepared questions submitted to Dr. Joseph W. Westphal by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols Act has had significant and 
positive impact on Department of Defense (DOD) operations. I believe 
that the framework established by Goldwater-Nichols has substantially 
improved interservice and joint relationships and promoted the 
effective execution of both military department and combatant command 
responsibilities. I believe that it is very important that the 
Department work with Congress to continuously assess the law in light 
of improving capabilities, evolving threats, and changing 
organizational dynamics. I am currently unaware of any reason to amend 
Goldwater-Nichols, but if confirmed, I will have an opportunity to 
assess whether the challenges posed by today's security environment and 
business operations require amendments to the legislation with a view 
to continuing the objectives of defense reform.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I look forward to reviewing this milestone 
legislation and assessing whether any changes should be considered to 
address the challenges posed by today's security environment.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. My professional background offers several areas of 
experience that I believe qualifies me for the position of Under 
Secretary of the Army. First, more than fifteen years of Federal 
Government service which includes work in the House and Senate as well 
as, Interior, EPA, and Army. I have a working knowledge of interagency 
dynamics as well as budgeting, finance, legal and contracting areas 
within the Federal and State Government arenas.
    In addition, my previous position as Chancellor as well as other 
administrative positions in higher education has provided me with 
experience in strategic planning, financial management, modernizing 
business operations and leadership. For example, as Chancellor of the 
University of Maine System, I implemented the most significant 
restructuring of the System's business operations. Through the 
application of a new enterprise operating system, I led the work to 
completely transform the highly decentralized business operations to a 
more efficient and cost effective operating system for all business 
functions.
    Finally, my previous positions in DOD as an Assistant Secretary of 
the Army for Civil Works, Acting Secretary of the Army and a member of 
President elect Obama's transition team have provided me significant 
experience in all matters affecting the department and its relations 
within DOD. I have a strong commitment to building partnerships and 
strengthening accountability and efficiency. My earlier experience in 
the Department strengthened my knowledge and respect for the men and 
women who serve our country in uniform and the civilians who support 
and strengthen our institutional commitment to our national security.
                                 duties
    Question. Section 3015 of title 10, U.S.C., states the Under 
Secretary of the Army shall perform such duties and exercise such 
powers as the Secretary of the Army may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Army?
    Answer. As set forth above, the Under Secretary of the Army 
performs such duties and exercises such powers as the Secretary of the 
Army prescribes. The Under Secretary is the Secretary's principal 
civilian assistant and advisor on issues of critical importance to the 
Army. Further, pursuant to section 904 of the National Defense 
Authorization Act for Fiscal Year 2008, the Under Secretary of the Army 
is the Chief Management Officer (CMO) of the Department, with the 
primary management responsibility for business operations. In 
accordance with section 908 of National Defense Authorization Act for 
Fiscal Year 2009, the Secretary of the Army acts through the Under 
Secretary in his role as CMO to carry out an initiative for the 
business transformation of the Army.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Army, as set 
forth in section 3015 of title 10, U.S.C., or in DOD regulations 
pertaining to functions of the Under Secretary of the Army?
    Answer. If I am confirmed, I will review the current assignment of 
duties and functions of the Under Secretary of the Army, discuss my 
findings with the Secretary of the Army and recommend to the Secretary 
any changes that I believe would enhance the Under Secretary's ability 
to support for the Secretary of the Army's efforts to ensure that the 
Department of the Army is effectively and efficiently administered in 
accordance with law and the policies promulgated by the Office of the 
Secretary of Defense.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. I expect that the Secretary will designate me as the CMO of 
the Department with all of the duties and responsibilities associated 
with that position. I also expect that the Secretary will assign me 
duties that most appropriately support his efforts to ensure that the 
Department of the Army is effectively and efficiently administered in 
accordance with law and the policies promulgated by the Office of the 
Secretary of Defense, taking into consideration my background and 
experience.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense, as head of DOD, possesses full 
authority, direction, and control over all of its elements. If 
confirmed, and subject to the authority, direction, and control of the 
Secretary of the Army, I will support the policy and direction of the 
Secretary of Defense to the best of my ability.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense may prescribe. The 
Deputy Secretary's responsibilities require him, from time to time, to 
issue guidance and direction to the military departments. If confirmed, 
and subject to the authority, direction, and control of the Secretary 
of the Army, I will support the guidance and direction of the Deputy 
Secretary of Defense. I will also support and work with the Deputy 
Secretary in his role as the CMO of DOD.
    Question. The Deputy CMO of DOD.
    Answer. The Under Secretary of the Army is designated the CMO for 
the Army. If confirmed, I will deal directly with the Deputy Secretary 
of Defense (DOD CMO) and the DOD DCMO on the full range of matters 
dealing with the management of the DOD, and will assist in the 
development of a comprehensive departmental transformation plan and 
business systems architecture, and help to identify and implement 
potential business process improvements.
    Question. The Director of the Business Transformation Agency.
    Answer. In accordance with title 10, U.S.C., section 192(e)(2), the 
Director of the Defense Business Transformation Agency reports directly 
to the Deputy CMO of DOD. Further, the 2009 National Defense 
Authorization Act, section 908, charges the Army's CMO to consult with 
the Director of the Defense Business Transformation Agency as to the 
appointment of the Army's Director of Business Transformation. Further, 
the Director of Business Transformation of the Army reports directly to 
the CMO, subject to policy guidance from the Director of the Business 
Transformation Agency of DOD. If confirmed, I would work closely with 
the DCMO to determine needed changes to Departmental transformation 
plan, business systems architecture, and to identify needed business 
process improvements.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, as required and subject to the 
authority, direction, and control of the Secretary of the Army, I will 
establish and maintain a professional relationship with the Chairman, 
cooperate with him in the performance of his responsibilities, and 
communicate with him on policy matters involving the Army.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties prescribed for him as 
a member of the Joint Chiefs of Staff and such other duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense. If confirmed, as required and subject to the authority, 
direction, and control of the Secretary of the Army, I will establish 
and maintain a professional relationship with the Vice Chairman, 
cooperate with him in the performance of his responsibilities, and 
communicate with him on policy matters involving the Army.
    Question. The Secretary of the Army.
    Answer. The Secretary of the Army is the head of the Department of 
the Army and is responsible for, and has authority to conduct, all 
affairs of the Department of the Army as prescribed by law or by the 
President or Secretary of Defense. If confirmed, my relationship with 
the Secretary of the Army would be close, direct, and supportive. I 
would work to communicate as effectively as possible with the Secretary 
regarding the advice, views, and plans of the Secretariat and Army 
Staff and to oversee the implementation of the Secretary's decisions 
throughout the Army. I further understand that, if confirmed, I would 
serve as the CMO of the Department of the Army and understand that in 
that capacity I would be accountable to the Secretary for the effective 
and efficient organization and management of the Army's business 
operations and for carrying out an initiative for the business 
transformation of the Army. I understand that all of my actions would 
be subject to the authority, direction, and control of the Secretary of 
the Army.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army performs his duties under 
the authority, direction, and control of the Secretary of the Army and 
is directly responsible to the Secretary. The Chief of Staff also 
performs the duties prescribed for him by law as a member of the Joint 
Chiefs of Staff. If confirmed, subject to the authority, direction, and 
control of the Secretary of the Army I will work with the Chief of 
Staff as he performs his prescribed duties to ensure that the Army 
Secretariat and the Army Staff work together efficiently and 
effectively to accomplish the missions entrusted to the Secretary of 
the Army and the Secretary of Defense.
    Question. The Assistant Secretary of the Army for Civil Works.
    Answer. The Assistant Secretary of the Army (Civil Works) (ASA(CW)) 
has as the principal responsibility overall supervision of the 
functions of the Department of the Army relating to all aspects of the 
civil works program. The ASA(CW) has as a principal duty the overall 
supervision of Army functions relating to programs for conservation and 
development of national water resources, including flood control, 
navigation, hydropwer, environmental restoration and wetlands 
protection. If confirmed, I will cooperate fully with the Assistant 
Secretary in carrying out the responsibilities of the Secretary.
    Question. The other Assistant Secretaries of the Army.
    Answer. The four other Assistant Secretaries of the Army help set 
the Army's strategic direction by formulating and overseeing policies 
and programs within their respective functional areas of 
responsibility, consistent with applicable laws and regulations and in 
accordance with the objectives and guidance of the Secretary of the 
Army. If confirmed, I will work to establish a strong Secretarial team 
by maintaining a close and professional relationship with each of the 
Assistant Secretaries, working together on the day-to-day management 
and long-range planning needs of the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of Army and serves as counsel to the Secretary and other 
Secretariat officials. His duties include providing legal and policy 
advice to officials of the Department of the Army, as well as 
determining the position of the Army on any legal question or 
procedure. If confirmed, I will establish and maintain a close and 
professional relationship with the General Counsel and will actively 
seek his/her guidance to ensure that Army policies and practices are in 
strict accord with the law and the highest principles of ethical 
conduct.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army is charged with inquiring 
into, and reporting on the discipline, efficiency, economy, morale, and 
training, and readiness of the Army, as directed by the Secretary of 
the Army or the Chief of Staff. If confirmed, I will establish and 
maintain a close and professional relationship with The Inspector 
General of the Army
    Question. The Surgeon General of the Army.
    Answer. The Surgeon General is a special advisor to the Secretary 
of the Army and to the Chief of Staff on all matters pertaining to the 
military health service system. In that role, The Surgeon General 
assists the Secretary and the Chief in carrying out their 
responsibilities by ensuring a medically ready force as well as a 
trained and ready medical force. If confirmed, I intend to work closely 
with The Surgeon General to ensure that the Army's healthcare systems 
and medical policies support the Army's objectives, responsibilities, 
and commitments effectively and uniformly across the total force, with 
a particular focus on Wounded Warriors.
    Question. The Army Business Transformation Office.
    Answer. I am advised that in accordance with section 908 of the 
National Defense Authorization Act for Fiscal Year 2009, the Secretary 
of the Army has established the Office of Business Transformation of 
the Department of the Army to assist the CMO of the Army in carrying 
out a business transformation initiative for the Army. The Office of 
Business Transformation will be headed by a Director of Business 
Transformation who shall be appointed by the Army's CMO in consultation 
with the Director of the Defense Business Transformation Agency, from 
among individuals with significant experience managing large-scale 
organizations or business transformation efforts. The Director of 
Business Transformation of the Army reports directly to the CMO, 
subject to policy guidance from the Director of the Business 
Transformation Agency of DOD. If confirmed, I intend to work closely 
and directly with the Army Business Transformation Office to carry out 
a business transformation initiative for the Army and will fulfill my 
statutory obligations regarding the appointment of the Director of 
Business Transformation of the Army.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General of the Army is the legal adviser 
of the Chief of Staff of the Army, members of the Army Staff, and 
members of the Army generally. In coordination with the Army General 
Counsel, The Judge Advocate General serves as military legal adviser to 
the Secretary of the Army. The Judge Advocate General also directs the 
members of the Judge Advocate General's Corps in the performance of 
their duties and, by law, is primarily responsible for providing legal 
advice and services regarding the Uniform Code of Military Justice and 
the administration of military discipline. Therefore, I will establish 
and maintain a professional and inclusive relationship with The Judge 
Advocate General and always welcome his views about any legal matter 
under consideration.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense and is the 
principal adviser to the Secretary of the Army and the Chief of Staff 
of the Army, and to the Secretary of the Air Force and the Chief of 
Staff of the Air Force, on matters relating to the National Guard, the 
Army National Guard of the United States, and the Air National Guard of 
the United States. If confirmed, and subject to the authority, 
direction, and control of the Secretary of the Army, I will establish a 
close, professional relationship with the Chief, National Guard Bureau 
and will communicate with him as he performs his prescribed duties.
                    major challenges and priorities
    Question. In your view, what are the major challenges, if any, that 
you would confront if confirmed as Under Secretary of the Army?
    Answer. The Army is faced with many challenges today and in the 
future, including providing proper support to soldiers and families in 
time of war, enhancing readiness, providing quality housing, 
modernizing equipment, and meeting recruiting and retention goals The 
Army must transform its support infrastructure and integrate base 
realignment and closure decisions. The Army must provide a quality of 
life commensurate with the quality of soldiers' service and provide 
high quality care, particularly for those suffering from Post-Traumatic 
Stress Disorder and Traumatic Brain Injuries. Finally, the Army must 
transform Army contracting by improving staff capability and providing 
leadership and training in this critically important area.
    All of these and other issues face the challenges of fiscal 
constraints while tempo of operations remains high at a time of great 
fiscal stress for the Nation. If confirmed, with direction from the 
Secretary of the Army, I will address these issues in consultation with 
this committee and Congress, the President, and the Army leadership.
    Question. If confirmed, how would you prioritize and what plans 
would you have, if any, for addressing these challenges?
    Answer. The Army, in helping to sustain our national defense and 
security, places great demands on our soldiers and their families and 
in times of war there are significant increases in the stress to the 
force, soldier readiness, family well being, equipment and 
modernization, transitioning the Reserve component and many other areas 
important to the mission.
    If confirmed, I will provide my assistance to the Secretary in 
pursuing initiatives aimed at improving our business operations and 
provide leadership across the Department in support of his efforts to 
transform management to meet the critical needs of the Army.
                  army management and planning process
    Question. Over the past several years, the Army's planning, 
programming, and budgeting process has not kept pace with rapidly 
changing requirements. While this is more understandable for 
operational events like the Presidential decision to surge additional 
forces into Iraq, it is less understandable with respect to long-term 
programmatic decisions such as the modular conversion of Army brigades 
or the more recent decision to increase Army end strength. It has 
become routine for the Army to submit ``placeholders'' instead of 
actual program plans in budget requests, and to purchase temporary 
facilities followed almost immediately by additional funding requests 
to buy permanent facilities to replace the temporary ones.
    What is your understanding and assessment of the Army's management 
and planning process and any changes or reforms of these processes 
currently underway?
    Answer. I am not in a position to assess the Army's management and 
planning process at this time, however, if confirmed, I will make it a 
priority to understand this process and recommend and implement changes 
as necessary to improve planning and budgeting.
    Question. If confirmed, what additional changes would you propose, 
if any, to correct or improve management and planning processes?
    Answer. If confirmed, I will examine how Army can seek improvements 
that can be instituted to make the process more efficient and more 
adaptive to the changing environment.
    Question. In your view, does the Army have enough people with the 
right skills to manage the changes being attempted, or is the Army 
undertaking more organizational change than it is capable of 
accomplishing during a time of war?
    Answer. At this time I am not in a position to assess if the Army 
has enough people with the right skills to manage the changes being 
attempted.
    Question. The Army budget, including annual base and supplemental 
appropriations, has grown significantly in both absolute and relative 
terms since the start of the wars in Afghanistan and Iraq. However, the 
Army's annual base budget request to Congress has not provided full 
funding for planned procurement or operation and maintenance costs 
related to force reset, nondeployed readiness, or, in some cases, 
modernization. Instead, the Army has pushed requests for significant 
portions of these costs into later supplemental appropriations. This in 
turn causes cash flow challenges throughout the fiscal year that appear 
to invariably result in threats of the cancellation of contracts, work 
stoppage, and civilian workforce furloughs.
    If confirmed, what changes in management would you propose, if any, 
to reduce or eliminate the Army's chronic cash flow challenges?
    Answer. I do not have sufficient information at this time to 
recommend any changes to the Army's cash flow management.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Army as the 
Army's CMO. Section 908 of the National Defense Authorization Act for 
Fiscal Year 2009 requires the CMO of each of the military departments 
to carry out a comprehensive business transformation initiative, with 
the support of a new Business Transformation Office.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in his capacity as CMO of the Department of the 
Army?
    Answer. Pursuant to section 904 of the National Defense 
Authorization Act for Fiscal Year 2008, the Under Secretary of the Army 
is the CMO of the Department, with the primary management 
responsibility for business operations. The Secretary of the Army is 
charged to assign to the Under Secretary such duties and authorities as 
are necessary to organize and administer the business operations of the 
Army effectively and efficiently, in accordance with the policies 
promulgated by the Secretary of Defense. In accordance with section 908 
of National Defense Authorization Act for Fiscal Year 2009, the 
Secretary of the Army acts through the Under Secretary, in his role as 
CMO, to carry out an initiative for the business transformation of the 
Army. This responsibility includes developing and implementing both a 
comprehensive business transformation plan and a business systems 
architecture and transition plan.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. I believe my previous service in the Federal Government, in 
both the Legislative and the executive branches has afforded me 
extensive experience in budgeting, strategic planning, program 
management and evaluation, finance, legal and contracting areas. Also 
as Chancellor of a large university system, I led a significant 
overhaul of all business operations from a highly decentralized and 
inefficient management system to a more coordinated and cost effective 
operation. Finally, my experience as Assistant Secretary of the Army 
for Civil Works and Acting Secretary of the Army have provided me with 
experience in the Department and a strong knowledge of its mission, 
operations, and business processes.
    Question. Do you believe that the CMO and the Business 
Transformation Office have the resources and authority needed to carry 
out the business transformation of the Department of the Army?
    Answer. I have been advised that Secretary of the Army Geren made a 
conscious choice to defer to his successor significant decisions 
regarding the roles and responsibilities of the Army's CMO and Director 
of Business Transformation and the structure, organization, and 
staffing of their respective offices. If confirmed, I would expect that 
the Secretary of the Army and I would focus immediately on developing 
and implementing the roles, responsibilities, and authorities of the 
CMO and the Office of Business Transformation, both to meet statutory 
mandates and to gain the most benefit for the Army, and on resourcing 
the Chief Management Office and the Office of Business Transformation.
    Question. What role do you believe the CMO and the Business 
Transformation Office should play in the planning, development, and 
implementation of specific business systems by the military 
departments?
    Answer. It is my understanding that the CMO has ``the primary 
management responsibility for business operations'' of the Army and is 
responsible to carry out an initiative for the business transformation 
of the Army. By law, the objectives of the Army's business 
transformation initiative must include the development and 
implementation of both a business transformation plan to achieve an 
integrated management system for the Army's business operations and of 
an enterprise-wide business systems architecture and transition plan 
encompassing end-to-end business processes. In my view, these 
objectives will require the CMO and the Office of Business 
Transformation to align business systems with strategic priorities, 
with a view to overcoming gaps in the Army's ability to carry out its 
title 10 functions. If confirmed, and consistent with the Secretary of 
the Army's guidance, I will work to oversee the development and 
implementation of business systems to maximize the effectiveness and 
efficiency of the Army's business operations.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO and creating the 
Business Transformation Office?
    Answer. It is my understanding that the Army is in the initial 
stages of implementing these statutory provisions. If confirmed, I look 
forward to reviewing the implementation, and, together with the 
Secretary of the Army, assessing and recommending modifications, as 
appropriate.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes. The Department has chosen to implement 
the requirement for an enterprise architecture and transition plan 
through a ``federated'' approach in which the Business Transformation 
Agency has developed the top level architecture while leaving it to the 
military departments to fill in most of the detail. The Army's business 
systems, like those of the other military departments, remain incapable 
of providing timely, reliable financial data to support management 
decisions. In particular, the Government Accountability Office has 
reported that the Army has not yet followed DOD's lead in establishing 
new governance structures to address business transformation; has not 
yet developed a comprehensive enterprise architecture and transition 
plan that plugs into DOD's federated architecture in a manner that 
meets statutory requirements; and instead continues to rely upon old, 
stovepiped structures to implement piecemeal reforms.
    If confirmed, what steps, if any, would you take to ensure that the 
Army develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. I expect that if I am confirmed, the Secretary of the Army 
will direct me to supervise the Office of Business Transformation in: 
transforming the budget, finance, accounting, and human resource 
operations of the Army, consistent with the Army's business 
transformation plan; eliminating or replacing financial managements 
systems that are inconsistent with the Army's overall business systems 
architecture and transition plan; and ensuring that the Army's plans 
are implemented in a manner that is aggressive, realistic, and 
accurately measured. I believe that each of these efforts will advance, 
in some way, the Army's development of the business systems and 
processes it needs to appropriately manage funds in the best interests 
of the taxpayer and the national defense.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture, and transition plan is essential to the 
successful transformation of the Army's business systems?
    Answer. Yes.
    Question. What steps would you take, if confirmed, to ensure that 
the Army's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. If confirmed, I will work closely with the Deputy CMO of 
DOD and with the Director of the Defense Business Transformation Agency 
and with all of the Army Assistant Secretaries to ensure that the 
business transformation initiatives, plans, programs, and systems 
developed by the Army are fully coordinated and compatible with the 
business systems architecture and transition plan implemented by DOD 
pursuant to title 10, U.S.C., section 2222.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. In my view, timely and accurate financial and business 
information are absolutely critical to the Army's management of 
operations and to its ability to hold managers accountable for the 
results of their business-related decisions.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, I would work diligently in my role as the 
CMO, to oversee the work of the Office of Business Transformation to 
develop and implement aggressive and realistic actions to rectify this 
sort of problem.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Army managers?
    Answer. I understand that the CMO is responsible for achieving an 
integrated management system for the business operations of the Army, a 
critical component of which is providing Army managers timely and 
accurate financial and business information in support of their 
operations and decisions. If confirmed, I will work with the Assistant 
Secretaries of the Army, other Army Secretariat officials, members of 
the Army Staff, and other Army officials, to include the Director of 
the Office of Business Transformation, in their respective functional 
areas, to develop and oversee the implementation of plans, processes, 
and systems capable of providing accurate and timely information in 
support of the Army's business decisions.
                           acquisition issues
    Question. Many experts have acknowledged that DOD may have gone too 
far in reducing its acquisition work force, resulting in undermining of 
its ability to provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. I do not have sufficient information at this time to make 
this assessment. If I am confirmed, I would immediately assess this 
issue and work with the appropriate Army leadership to make sure the 
Army has the appropriate workforce levels to do the job.
    Question. If so, what steps do you believe the Department of the 
Army should take to address this problem?
    Answer. Acquisition reform is a top priority of President Obama and 
of Secretary Gates and if confirmed, I will make it one of my top 
priorities to ensure that the Department of the Army makes maximum use 
of the acquisition workforce authorities provided in the National 
Defense Authorization Act for Fiscal Year 2008 necessary to grow, 
recruit, and retain a corps of acquisition professionals adequate to 
manage and oversee the Department's acquisition functions.
    Question. Major defense acquisition programs in the Department of 
the Army and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes.
    Question. What steps, if any, do you believe the Army should take 
to address funding and requirements instability?
    Answer. Stable requirements and funding are critical for a 
successful acquisition program. If confirmed, I will carefully examine 
the Army's requirements generation, resourcing, and acquisition 
processes and seek to maximize stability in funding and requirements.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Department of the 
Army should take to address these problems?
    Answer. I do not have sufficient information and data at this time 
to outline necessary steps needed to correct these issues. If 
confirmed, I will focus on insuring their timely implementation in 
order to develop stable, defined requirements and rigorous program 
oversight.
    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Army should take to improve 
the staffing, training and management of its acquisition of services?
    Answer. If confirmed, I would expect the Secretary of the Army to 
direct an assessment of services acquisition to include organization, 
policy and processes to ensure we have an effective management 
structure. I would also work with the Secretary to ensure that service 
acquisition management was properly resourced.
    Question. Do you agree that the Army should develop processes and 
systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. The Army should have the processes and systems in place to 
conduct spending analyses and enhance the overall management of service 
contracts. I understand there are some information management systems 
in place, but they were not intended to do comprehensive spending 
analyses and may need to be enhanced. If confirmed, I would support 
this effort.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. DOD is by far the 
largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Army should take to ensure 
that its use of interagency contracts complies with applicable DOD 
requirements and is in the best interests of the Department of the 
Army?
    Answer. It is my understanding that the Office of Federal 
Procurement Policy, DOD, and the Army have issued new and/or revised 
policy, procedures and guidance to address the problems identified by 
the Inspector General. If confirmed, I would work with the Secretary of 
the Army to ensure that the Army's Procurement Management Review Team 
makes assessing the Army's compliance with the revised policy and 
procedures and the overall effectiveness of the revised policy and 
procedures an item of special interest.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade. Since the mid-1990s, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System and 
Modularity. Instability in funding, either as provided by DOD or 
Congress, has been cited by the Army and others as a principal cause of 
program instability. For the most part, however, the Army has benefited 
from broad DOD and Congressional support for its modernization and 
readiness programs even when problems with the technical progress and 
quality of management of those programs have been apparent--the Armed 
Reconnaissance Helicopter is a recent example.
    What is your assessment, if any, of the Army's modernization 
record?
    Answer. The Army's modernization record demonstrates the complexity 
of the rapidly changing threat environment. If confirmed, I will work 
with the Secretary of the Army to equip and modernize the force.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. Stable, predictable Total Obligation Authority allows the 
Army to balance these needs, chart a course, and stick to it. If 
confirmed, I will work with the Secretary of the Army, the Office of 
the Secretary of Defense (OSD), and Congress to arrive at that stable 
funding level, and subsequently a stable modernization program. The 
second element necessary for action is ensuring that the Departments of 
the Army and the rest of DOD understand and synchronize the 
requirements that must be pursued.
    Question. What is your understanding and assessment of the Army's 
modernization investment strategy?
    Answer. I do not have sufficient information to assess the Army's 
modernization investment strategy. If confirmed, I would plan a 
thorough review of these investments.
    Question. In your view does the Army's modernization investment 
strategy appropriately or adequately address current and future 
capabilities that meet requirements for unconventional or irregular 
conflict?
    Answer. I do not have the necessary knowledge or data to accurately 
and reliably answer this question. If confirmed, I will do my utmost to 
address it.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue in this regard?
    Answer. A full review of the Army's investment initiatives will be 
an early goal of mine if I am confirmed. At this point, however, it is 
premature for me to offer recommendations on adjusting investment 
initiatives.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. I believe one of the strengths of the Defense Program is to 
specifically address affordability and the outyear projection of long 
term funding requirements. Those processes have been strengthened by 
initiatives by Congress and within OSD. If confirmed I will have the 
required visibility and access to the management structure that will 
allow me to provide these recommendations.
    Question. In your view, what trade-offs, if any, would most likely 
have to be taken should budgets fall below or costs grow above what is 
planned to fund the Army's modernization efforts?
    Answer. If confirmed, I will make every effort to ensure that the 
Army builds a balanced program to respond to defense needs as directed 
by national and defense policy. In doing so, trade-offs will occur with 
areas of risk carefully considered, and if required, adjusted in 
coordination with OSD and Congress.
                      army weapon system programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Future Combat System (as restructured).
    Answer. As this response is being written, there continues to be a 
great deal of activity and change in the FCS program, especially with 
the Defense Authorization Bill currently being debated on the floor of 
the Senate. My understanding is that the Army has been directed to 
transition to an Army modernization plan consisting of a number of 
integrated acquisition programs: (1) Spin Out Early-Infantry Brigade 
Combat Team (BCT); (2) Follow-on BCT Modernization/Equipment for BCT 
Modernization; (3) Ground Tactical Network capability; and (4) a new 
Ground Combat Vehicle platform. I am not yet in a position to offer an 
informed assessment of these efforts, If confirmed, I will work to 
advise the Secretary of the Army on both the R&D and the Acquisition 
programs.
    Question. Stryker combat vehicle, including the Stryker mobile gun 
variant.
    Answer. While I am not yet in a position to offer an informed 
assessment of the Stryker program, I understand that Stryker variants 
have been in production since 2004 and that this system has been used 
successfully in Iraq and is preparing to deploy to Afghanistan.
    Question. Joint Light Tactical Vehicle (JLTV).
    Answer. While I am not yet in a position to provide an informed 
assessment of JLTV, I understand that it is a relatively new joint 
Service developmental program, which consists of a family of vehicles 
with companion trailers, capable of performing multiple mission roles. 
It is my understanding that the JLTV will be designed to provide 
protected, sustained, networked mobility for personnel and payloads 
across the full range of military operations (traditional to 
irregular).
    Question. Armed Reconnaissance Helicopter (ARH).
    Answer. It is my understanding that the Army has an enduring 
requirement for a light, manned, armed reconnaissance helicopter that 
was unaffected by the termination of the ARH program. While I am not 
yet in a position to provide an informed assessment of Armed Scout 
Helicopter, I understand that this latest effort is completing 
pretechnology development activities under the supervision of the 
Defense Acquisition Executive.
    Question. M1 Abrams tank modernization.
    Answer. The Abrams Tank has been an integral part of the Army's 
force structure for decades. I understand that as a result of the 
Operation Iraqi Freedom, the system has encountered performance 
decrements that impact the tank's operational performance and 
reliability, and that the Abrams tank modernization strategy has been 
initiated to address these issues. While I am not yet in a position to 
provide an informed assessment of this effort, I understand that it is 
intended to enable the Abrams tank to maintain its leading edge in 
survivability, lethality, and maintainability through 2050.
    Question. M2 Bradley infantry fighting vehicle modernization.
    Answer. The Bradley also has been an integral part of the Army's 
force structure for decades. I understand that as a result of the 
Operation Iraqi Freedom, the program has encountered performance 
decrements that impact the vehicle's operational performance and 
reliability and that modernization efforts have been initiated to 
address these concerns. While I am not yet in a position to provide an 
informed assessment of this effort, I understand that it is intended to 
enable the Bradley to maintain its leading edge in survivability, 
lethality, and maintainability through 2050.
    Question. Warfighter Information Network-Tactical (WIN-T).
    Answer. While I am not yet in a position to provide an informed 
assessment of WIN-T, it is my general understanding that this program 
is the Army's critical modernization effort for managing electronic 
information in the tactical environment. I understand that the WIN-T 
capabilities are built on proven Government and commercial technology 
using voice, video, and data.
    Question. Logistics Modernization Program (LMP).
    Answer. While I am not yet in a position to provide an informed 
assessment of LMP, I understand that this program is designed to 
support, replace, and modernize aging, obsolete, and increasingly 
costly automation systems used at the national logistics level. I 
understand that when fully implemented, this program is intended to 
greatly enhance the Army's logistics capabilities to manage 
inventories, process millions of transactions, and it will integrate 
many critical DOD software systems. This effort is designed to unify 
and modernize our national logistics capabilities.
    Question. Joint Tactical Radio System (JTRS).
    Answer. While I am not yet in a position to provide an informed 
assessment of JTRS, I understand that this program is part of the 
Army's and DOD's network modernization effort. I understand that the 
system will provide the fully mobile, flexible, dynamic radio 
networking capability needed to support a highly dispersed force over a 
noncontiguous area.
            mine resistant ambush protected (mrap) vehicles
    Question. If confirmed, what would you propose should be the Army's 
long-term strategy for the utilization and sustainment of its large 
MRAP vehicle fleet?
    Answer. The MRAP was procured in response to a Joint Urgent 
Operational Need Statement from Multi-National Corps Iraq in June 2006. 
The initial intent was to replace all up-armored HMMWVs (UAH) in 
theater because those vehicles could not provide the required levels of 
protection and previous modifications had greatly reduced vehicle 
payload. The urgent nature of this program resulted in many steps 
associated with a traditional acquisition process being deferred in an 
effort to expedite delivery to the field. If confirmed, I will work 
with the Secretary of the Army to determine the long-term role for the 
Army's fleet of MRAPs.
                               modularity
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. The new modular brigade combat team is supposed to have an 
increased capability to operate independently based upon increased and 
embedded combat support capabilities such as military intelligence, 
reconnaissance, and logistics. Although somewhat smaller in size, the 
new modular brigades are supposed to be just as, or more capable than 
the divisional brigades they replace because they will have a more 
capable mix of equipment--such as advanced communications and 
surveillance equipment. To date, the Army has established over 80 
percent of its planned modular units, however, estimates on how long it 
will take to fully equip this force as required by its design has 
slipped from 2011 to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. It is my understanding, the Army's modular transformation 
was designed to create a more expeditionary capable force that will 
address the full-spectrum of missions emerging from a post-Cold War 
strategy. The Army Campaign Plan and force management processes help 
synchronize and implement the transformation strategy across the 
active, Army National Guard and Army Reserve components. If confirmed, 
I will support the Secretary of the Army in undertaking this 
assessment.
    Question. In your view, what are the greatest challenges in 
realizing the transformation of the Army to the modular design?
    Answer. The Army faces two major challenges--restoring balance to a 
force experiencing the cumulative effects of 7 years of war and setting 
conditions for the future to fulfill the Army's strategic role as an 
integral part of the Joint Force.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy?
    Answer. If confirmed, I will work with the Secretary of the Army to 
ensure that the Army Campaign Plan and goals for modularity are 
consistent with Department's strategy for the current and future 
environment, in an era of persistent conflict. I would work with the 
Secretary of the Army to assess the work of the QDR and its projections 
in relations to current Army plans.
    Question. What is your understanding and assessment of the 
employment and performance of modular combat brigades and supporting 
units in Operations Iraqi Freedom and Enduring Freedom?
    Answer. At present, I do not have the necessary information to 
render such an assessment. If confirmed, I would work to better 
understand the performance of modular combat brigades and supporting 
units and support the Secretary of the Army in an assessment of that 
performance.
    Question. What changes, if any, would you propose to the modular 
design, the mix of combat and supporting brigades, or modular unit 
employment to improve performance or reduce risk?
    Answer. At this time I do not have sufficient information to 
suggest any changes to the modular design.
                        active-duty end strength
    Question. The Army has increased its Active-Duty end strength to 
meet current and future operational requirements. The Army had planned 
to increase its end strength to 547,400 by 2010, but has already 
achieved this goal in 2009.
    In your view, what is the appropriate Army Active-Duty end strength 
needed to meet the demand for deployed forces, increase nondeployed 
readiness, build strategic depth, and relieve stress on soldiers and 
their families?
    Answer. At this time, I do not have the information to predict 
accurately the appropriate Army end strength. However, I support the 
Secretary of Defense's recognition that the Army is under stress and 
requires additional Active component manpower.
    Question. If Army end strength is projected to be above 547,400 in 
fiscal years 2009 or 2010, how would you propose, if confirmed, to fund 
the additional end strength above levels budgeted for fiscal year 2010?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army and the Assistant Secretary of the Army (Financial Management and 
Comptroller) to identify appropriate funding sources, and I will 
support the Secretary of the Army's efforts to seek assistance from the 
Secretary of Defense and Congress, as necessary, to ensure an 
appropriate level of funding.
    Question. Do you believe that the Army's Active-Duty end strength 
should increase by 30,000 in the 2010 to 2012 timeframe and beyond?
    Answer. I fully support the recognition by the Secretary of Defense 
that the Army is under stress and needs additional Active component 
manpower, up to a temporary increase of 22,000. If confirmed, I will 
support the Secretary of the Army's efforts to ensure that any 
projected increase is well-analyzed, fully coordinated, and fully 
justified.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continues its steep upward growth and is becoming 
an ever increasing portion of the DOD budget.
    If confirmed, what actions would you take to control the rise in 
the Army's personnel costs and entitlement spending?
    Answer. I have been advised that the military departments have 
limited authority to reduce overall personnel costs and entitlement 
spending. If I am confirmed, I will work with the Secretary of the Army 
to ensure adequate oversight to provide early warning regarding the 
costs and effects of proposed new military pays or benefits.
    Question. If confirmed, what actions would you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. As my experience has taught me about change in any large 
organization, military personnel changes take time to execute and 
implement throughout the force. If confirmed, I will work closely 
within the Army and with DOD to advance the Secretary of the Army's 
efforts to budget accurately and monitor budget execution, end 
strength, and the use of incentives to ensure the Army remains in 
balance.
                            lessons learned
    Question. What do you believe are the major lessons that the 
Department of the Army has and should have learned from Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) regarding its 
title 10, U.S.C., responsibilities for manning, training, and equipping 
the force?
    Answer. Lessons learned from OEF/OIF have caused the Army to adjust 
its training and equipment to fight an adaptable, determined enemy. On 
the homefront, the pace of operations has placed great stress on Army 
families and Army has had to build programs to better support families. 
Army has also had to expand language skills and enhance cultural 
awareness to be successful in the operations and missions Army is 
engaged in today and likely will be engaged in the future. The Army 
must continue to modernize and sustain its combat training centers, 
home station training, and institutional training. The Army must 
continue to look for ways to enhance its capabilities in Detention 
operations. With growth in the Army's force structure and the 
challenges this places on training, the Army needs to continue to 
assess ways to train efficiently, using training resources from all 
Army components, as appropriate. Because of the large load that the 
Army National Guard and the U.S. Army Reserve is pulling, the Army 
needs to assess continually its mobilization policies, balancing 
training requirements to meet the appropriate level of Reserve 
component operational readiness with domestic missions and 
requirements.
    Question. If confirmed, which of these lessons, if any, would you 
address as a matter of urgent priority?
    Answer. I believe the Army leadership must take each of these on as 
priorities. If confirmed, I anticipate discussing these matters with 
the Secretary of the Army and the uniformed leadership to determine 
what areas I could best manage in view of my background, position, and 
skills. I would consider most urgent those that directly impact the 
safety, welfare and quality of life for soldiers and their families.
 commission on army acquisition and program management in expeditionary
    Question. The Commission on Army Acquisition and Program Management 
in Expeditionary Operations concluded that ``the Army sent a skeleton 
contracting force into theater without the tools or resources necessary 
to adequately support our warfighters.'' According to the Commission, 
``Contracting, from requirements definition to contract management, is 
not an Army Core Competence. The Army has excellent, dedicated people; 
but they are understaffed, overworked, under-trained, under-supported, 
and most important, undervalued.''
    Do you agree with the conclusions reached by the Commission?
    Answer. Yes.
    Question. The Commission report states that ``The Army's difficulty 
in adjusting to the singular problems of Kuwait, Iraq, and Afghanistan 
is in large part due to the fact that there are no generals assigned to 
contracting responsibilities.'' The Commission recommends that Congress 
authorize ``a core set of 10 additional General Officers for 
contracting positions''.
    Do you support the recommendation of the Commission?
    Answer. I have read the recommendations but do not have enough 
information beyond the report to provide a definitive answer to this 
question. If confirmed, I would assess the findings in light of current 
conditions and review actions taken and anticipated to address the 
Commission's recommendations.
    Question. What is your understanding of the steps the Army has 
taken to address this recommendation?
    Answer. I know that Congress has authorized 10 additional General 
Officer billets, 5 for the Army and 5 for Joint Commands, and I applaud 
that. I have been informed that the Army selected one additional 
acquisition General Officer last year with more to come
    Question. If confirmed, what additional steps, if any, would you 
take to address this recommendation?
    Answer. If confirmed, I would begin to look at this matter by first 
seeking to put more focus on the recruitment, training and development 
of the military contracting corps to ensure the Army has a strong 
pipeline of capable colonels to fill these general officer positions in 
the near and long term.
    Question. The Commission report states that ``The number and 
expertise of the military contracting professionals must be 
significantly increased'' to address the problems we have experienced 
in theater. The Commission recommends that the Army hire 2,000 new 
contracting personnel.
    Do you support the recommendation of the Commission?
    Answer. Yes.
    Question. What is your understanding of the steps the Army has 
taken to address this recommendation?
    Answer. I do not have sufficient information to provide an informed 
answer to this question.
    Question. If confirmed, what additional steps, if any, would you 
take to address this recommendation?
    Answer. Under the direction of the Secretary of the Army, if 
confirmed, I would examine the entire contracting process in the Army, 
from requirements definition to the final receipt and payment for goods 
and services received. As best practices emerge from these efforts, 
they will be shared across the entire contracting workforce.
    Question. The Commission report states that most civilians working 
on contracting issues in Iraq were ``volunteers, often with inadequate 
or wrong skill sets for the job at hand, and often getting their 
required contracting experience on-the-job as part of their 
deployment.'' The Commission recommends that qualified civilians who 
agree to deploy be provided enhanced career and job incentives. These 
include the elimination of an existing pay cap, tax-free status, and 
long-term medical care for injuries incurred in-theater.
    Do you support the recommendations of the Commission?
    Answer. I support the Commission's recommendations.
    Question. What is your understanding of the steps that the Army has 
taken to implement these recommendations?
    Answer. It is my understanding that Congress has authorized several 
incentives to foster civilian participation in future expeditionary 
operations, specifically pay adjustments, and life insurance. I also 
understand that the Army is working with the other Services and the 
Defense Acquisition University to enhance training and increase the 
number of training courses.
    Question. If confirmed, what additional steps, if any, would you 
take to address these recommendations?
    Answer. If confirmed, I would need to assess progress on all 
recommendations. Without that assessment I am currently unable to 
specify what steps need to be taken to further implement the 
recommendations.
    Question. The Commission report states that some DOD and Army 
policies actively discourage the deployment of civilians. For example, 
the report states that volunteers are required to be sent on `detail,' 
so that the providing office has to pay salary and expenses of 
deploying civilians out of their existing budgets without any 
reimbursement or backfilling. As a result, the Commission reports, 
managers in the United States have actively discouraged civilians from 
volunteering.
    Do you agree with the Commission's findings on this issue?
    Answer. It is my understanding that volunteers represent ``out of 
hide'' costs that place burdens on CONUS contracting offices--
particularly in areas where there are hard to fill contracting jobs or 
in locations impacted by BRAC. Also, given that the contracting 
workforce has been cut by approximately 50 percent since the early 
1990s while workload has more than doubled increasing the likelihood 
that volunteering may have been discouraged at some activities. At the 
same time, I am gratified that so many civilians have volunteered to 
deploy in support of our troops.
    Question. What is your understanding of the steps that the Army has 
taken to address this problem?
    Answer. I understand the Army is in the process of standing up a 
new command--the Expeditionary Contracting Command under the Army 
Contracting Command to better support this mission.
    Question. If confirmed, what additional steps, if any, would you 
take to address this problem?
    Answer. If confirmed, I would support staffing plans that would add 
the required deployable workforce with the right skill mix to support 
proper execution and oversight of contracts in theater.
    Question. The report states that Contracting Officer's 
Representatives (CORs) are an ``essential part of contract 
management'', because they are responsible for ensuring contract 
performance. According to the report, however, ``CORs are assigned as . 
. . an `extra duty,' requiring no experience. . . . The COR assignment 
is often used to send a young soldier to the other side of the base 
when a commander does not want to have to deal with the person. 
Additionally, little, if any training is provided. . . . Despite this, 
there are still too few CORs. Moreover, COR turnover is high, 
frequently leaving many gaps in contract coverage.''
    Do you agree with the Commission's assessment of the CORs assigned 
in Iraq and Afghanistan?
    Answer. Although I have not yet been fully briefed on this issue, I 
have no reason to disagree with the Commission's assessment. I can 
understand that there would be challenges in obtaining the number of 
CORs needed and ensuring those CORs have the proper training in COR 
processes and technical background necessary to monitor contractor 
performance effectively.
    Question. What is your understanding of the steps that the Army has 
taken to address this problem?
    Answer. At this time I am not aware of the specific steps taken by 
the Department to address this problem.
    Question. If confirmed, what additional steps, if any, would you 
take to address this problem?
    Answer. If confirmed, I would continue to support actions to ensure 
a sufficient number of trained CORS with the right technical skill sets 
are assigned in theater to provide appropriate contractor oversight.
                       contract support functions
    Question. DOD has engaged in the privatization of many of its 
support functions. As a result, the Department now relies heavily on 
contractors to perform acquisition, budget, and financial management 
functions that are critical to the execution of the Department's 
mission. Senior DOD officials have informed the committee both formally 
and informally that, because of reductions in the acquisition 
workforce, the Department now lacks the capability to effectively 
oversee the work performed by its support contractors.
    Do you believe that the Army has become too reliant upon 
contractors to perform critical functions?
    Answer. I agree with President Obama's government contracting 
memorandum of March 4, 2009, directing the Federal Government to ensure 
that functions that are inherently governmental in nature are performed 
by executive agencies and are not outsourced. If confirmed, I would 
work with leaders across the Army to assess this matter so as to ensure 
compliance with the law and with the President's policy.
    Question. What steps, if any, do you believe the Army should take 
to ensure that it has the resources it needs to provide effective 
oversight for its support contractors?
    Answer. Working within existing manpower constraints, the Army 
needs to ensure that its limited contract oversight resources are 
organized and employed in the most efficient manner. In addition, it 
needs to continue to place appropriate management emphasis on COR 
training.
    Question. The privatization of functions previously performed by 
DOD employees now extends to many functions performed on the 
battlefield. As a result, many functions that were performed by DOD 
personnel as recently as the Gulf War have been performed by contractor 
personnel in the current conflicts in Iraq and Afghanistan.
    Do you believe that DOD has reached, or exceeded, an appropriate 
balance in providing for the performance of functions by contractors on 
the battlefield?
    Answer. At this time I do not have the information necessary to 
answer this question fully. If confirmed, I will assess this issue and 
obtain the necessary information to address policy and future 
management options.
    Question. Where do you believe that DOD should draw the line 
between functions on the battlefield that can and should be performed 
by contractors and functions that should only be performed by DOD 
personnel?
    Answer. This is a complex matter. It is simple to state that 
inherently governmental functions should not be contracted out, 
however, the complexities of today's irregular conflicts and the 
increased sophistication of outside contractors have made these lines 
less clear. If confirmed, I would undertake efforts to better 
understand policy and requirements and work with OSD, the other 
Services, and the Army Staff to provide a more definitive answer to 
this important question.
    Question. Do you believe that contractors on the battlefield are 
subject to appropriate levels of control and accountability for their 
actions, or would additional regulation be appropriate?
    Answer. I have not been fully briefed on these matters and hesitate 
to render an opinion without further information. If confirmed, I will 
assess if existing controls are appropriate.
                      private security contractors
    Question. The Special Inspector General for Iraq Reconstruction 
(SIGIR) recently reported that Federal agencies including DOD have 
spent more than $5 billion for private security contractors in Iraq 
since 2003. Over this period, there have been numerous reports of 
abuses by private security contractors, including allegations of 
contractors shooting recklessly at civilians as they have driven down 
the streets of Baghdad and other Iraqi cities. In September 2007, 
employees of Blackwater allegedly opened fire on Iraqis at Nisour 
Square in downtown Baghdad, killing more than a dozen Iraqis and 
wounding many more.
    Do you believe the Army should rely upon contractors to perform 
security functions that may reasonably be expected to require the use 
of deadly force in highly hazardous public areas in an area of combat 
operations?
    Answer. It is my understanding that U.S. forces currently rely on 
contractors to `free-up' manpower for accomplishing missions focused on 
campaign objectives. If confirmed, I would seek addition information on 
this matter and request the advice of the Army General Counsel and the 
JAG in order to both render an opinion and implement policy.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq?
    Answer. If confirmed, subject to the authority, direction, and 
control of the Secretary of the Army, I would work with other 
appropriate elements at OSD and Army to seek agreement with the 
Department of State and DOD in establishing and defining a framework 
for improved accountability and operational oversight of PSCs in 
theater.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. If confirmed, I would comply with current mandates to 
minimize reliance on private security contractors to the maximum extent 
practicable. Any effort to assess the performance of private security 
contractors would require consultation with Army OGC, IG, and OSD 
policy.
    Question. How do you believe the ongoing operations of private 
security contractors in Iraq are likely to be affected by the new 
Status of Forces Agreement between the United States and Iraq?
    Answer. At this time, I do not have the appropriate information to 
make this determination.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I am generally not aware of the provisions of the Military 
Extraterritorial Jurisdiction Act of 2000 (MEJA). If confirmed, I would 
coordinate closely with the Office of General Counsel in the 
application of the act to private security contractors.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice (UCMJ) to employees of private 
security contractors operating in an area of combat operations?
    Answer. I strongly support the position that civilians serving with 
or accompanying our Armed Forces overseas who commit crimes should be 
held accountable as appropriate. The UCMJ provides commanders the tools 
necessary to maintain good order and discipline and the morale, welfare 
and safety of all those under their jurisdiction during military 
operations. Because misconduct by contractors may undermine good order 
and discipline, discredit the Army, or remain unaddressed absent the 
exercise of jurisdiction, Congress extended UCMJ jurisdiction over such 
individuals. The Secretary of Defense, in turn, published guidance on 
the prudent exercise of such jurisdiction in a memorandum of March 10, 
2008. This guidance ensures that the Department of Justice and DOD each 
play an appropriate role in resolving whether, and under which system, 
jurisdiction might be better exercised in each potential case.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons''
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. I have not been fully briefed on current policies regarding 
OMB Circular A-76. If confirmed, I intend to study this issue in 
greater depth to better understand the Army's assessment regarding this 
matter.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. I have not been sufficiently briefed on this matter to 
render an opinion for the committee. If confirmed, I will give this 
matter great focus and consider it in the context of those 
responsibilities assigned to me by the Secretary of the Army.
    Question. Do you believe that the Army fully considered these 
issues before deciding which functions should be assigned to private 
contractors in Iraq?
    Answer. At this time I do not have the necessary information to 
answer this question.
    Question. Do you see a need for a comprehensive reevaluation of 
these issues now?
    Answer. I support the principles and policies set forth in 
President Obama's memorandum of March 4, 2009. That memorandum directs 
the Office of Management and Budget, in coordination with the Secretary 
of Defense, among others, to develop and issue governmentwide guidance 
to assist executive branch agencies in reviewing the propriety of 
existing contracts and to formulate corrective action when appropriate. 
I believe that any such review must include an appraisal of inherently 
governmental functions and other critical government functions and how 
they are performed. If confirmed, I will support any such review and 
corrective action, particularly as it relates to matters under my 
purview.
                    iraq and afghanistan deployments
    Question. Many soldiers are on their third and some their fourth 
major deployment to Iraq or Afghanistan. In 2007, in order to support 
the surge of forces to Iraq, unit deployments were extended to 15 
months and dwell time in some cases less than 12 months. Beginning in 
August 2008 DOD policy has been to limit deployments for Active 
component soldiers and mobilization of Reserve component soldiers to 
not longer than 12 months.
    What is your assessment of the impact of multiple deployments of 
troops to Afghanistan and Iraq on retention, particularly among young 
enlisted and officer personnel after their initial obligated service 
has been completed?
    Answer. It is my understanding that the Army monitors retention 
very closely given the high operational demand and multiple deployments 
that soldiers are experiencing. I also understand that statistics 
reveal that multiple deployments to Afghanistan and Iraq are not 
adversely impacting enlisted retention. As to officers, I understand 
that the multiple deployments required in order to ensure our Nation's 
success in our overseas contingency operations have not resulted in 
increased attrition of mid-grade officers over the past several years. 
Beyond this general overview, I do not have sufficient information to 
give a more detailed response or provide data.
    Question. What are the indicators of stress on the force, and what 
do these indicators tell you about that level of stress currently? In 
addition to any other stress indicators that you address, please 
discuss suicide and divorce rates, drug and alcohol abuse, AWOLs, and 
rates of indiscipline.
    Answer. In this period of high operational and personnel tempo, 
Army leaders--officers and noncommissioned officers--must maintain a 
constant awareness of both the physical and mental condition of their 
soldiers and families and address concerns constructively as soon as 
they come to light. It is my understanding that reenlistment rates are 
high, one indication that soldier morale remains strong. I understand 
that other indicators of stress on the force, such as substance abuse 
and divorce, have increased. Of great concern to all is the significant 
increase in the number of soldier suicides. If confirmed, I will fully 
support the Secretary of the Army's commitment to provide soldiers and 
families with a quality of life commensurate with their service and 
continue Army efforts to develop multi-disciplinary solutions directed 
at mitigating risk behaviors and addressing the painful issue of 
soldier suicides. If confirmed, I would work diligently to address 
these critically important issues and to enhance soldier and family 
fitness and resilience.
    Question. For how long do you believe these levels of commitments 
can continue before there will be significant adverse consequences for 
the Army?
    Answer. The President, the Secretary of Defense, this committee, 
and Congress have expressed great concern over multiple deployments and 
the need for soldiers to have more time at home between deployments. An 
Army out of balance puts great stress on the force and it is my 
understanding that the Secretary of Defense has made this issue a high 
priority. At this time, I do not have the information or particular 
insights to determine how long the Army can sustain the current level 
of commitment without incurring significant adverse consequences. If 
confirmed, I would work to support the Secretary of the Army in 
addressing these adverse consequences in a timely manner.
    Question. The Chief of Staff of the Army, General Casey, has stated 
that the Army is ``out of balance.'' What is your understanding of this 
statement and what do you think can or should be done to correct that 
imbalance?
    Answer. As I understand it, General Casey has publicly defined 
``balance'' as the ability to achieve a 1:2 deployment-to-dwell (time 
at home station) ratio for Active component soldiers and a 1:4 
mobilization-to-demobilization ratio for Reserve component soldiers. 
Increased force structure and decreased demand are the two ways to 
improve balance. The Army has grown and achieved its new end strength 
of 547,000 almost 2 years in advance of its goal. This accomplishment, 
together with a future reduction in demand for forces, is a major step 
forward to achieving balance.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in 2006 and 2007, 
recommendations by the Commission on the National Guard and Reserves 
submitted on March, 1, 2007, and the Department's response to these 
calls for change are all currently under consideration.
    What is your understanding of the role and authority of the 
Director of the Army National Guard?
    Answer. The Director, Army National Guard, assists the Chief of the 
National Guard Bureau in carrying out the functions of the National 
Guard Bureau as they relate to the Department of the Army. 
Specifically, the Director of the Army National Guard guides the 
formulation, development, and implementation of programs and policies 
affecting the Army National Guard, a force of more than 358,000 
soldiers dispersed across the 54 States, Territories, and the District 
of Columbia. If confirmed, I will establish a close, professional 
relationship with the Director of the Army National Guard and will 
communicate with him as he performs his prescribed duties.
    Question. Should the Director be ``dual hatted'' as a Deputy Chief 
of Staff of the Army in your view?
    Answer. I have been informed that the Director of the Army National 
Guard is integrated in and works closely with both the Army Secretariat 
and the Army Staff on all matters involving the Army National Guard. If 
confirmed, and subject to the authority, direction, and control of the 
Secretary of the Army, I will consider any additional proposals under 
consideration to modify the title, functions, or authorities of the 
Director of the Army Guard.
    Question. What is your understanding and assessment of changes in 
the global and domestic roles and mission of the Army National Guard 
and the National Guard Bureau?
    Answer. The Army National Guard is a critical element of our 
Nation's total force. The Army National Guard has historically served 
as a ``first responder'' in State contingencies and national 
emergencies, while simultaneously meeting its operational commitments 
in support of overseas contingency operations. Since 2001, the National 
Guard Bureau has played an increased role in coordinating emergency 
relief and response efforts across the local, state, and national 
levels. It is a testament to the inherent flexibility of the current 
organization of the Army National Guard and the National Guard Bureau 
that not one mission has been unexecuted in this environment of high-
demand, dual-purpose requirements, and the Army has every reason to 
expect that extraordinary performance to continue.
    Question. What is your understanding and assessment of the Army's 
commitment to fully fund 100 percent of National Guard equipment 
requirements? In your view, do Army processes for planning, 
programming, and budgeting sufficiently address the requirements of the 
National Guard?
    Answer. The National Guard is a vital element of the capability the 
Army provides to combatant commanders and plays a critical role in the 
defense of the homeland and in providing defense support to civil 
authorities. Consequently, the National Guard must be properly and 
adequately trained, organized, and equipped. If confirmed, I will 
consult with the leadership of the Army National Guard to understand 
their requirements and to ensure that Army planning, programming, and 
budgeting processes are fair and equitable and sufficiently address the 
Guard's equipping and other requirements.
    Question. If confirmed, how would you ensure that the resourcing 
needs of the Army National Guard are fully considered and resourced 
through the Army budget? In your view, what is the appropriate role for 
the Chief of the National Guard Bureau in this regard?
    Answer. If confirmed, I will ensure that the Active and Reserve 
component will continue to work in concert to provide the land 
component capabilities our Nation needs. I do not have, at this time, 
sufficient information on both resourcing needs and the Army budget to 
make any recommendations. I would work with the Chief of the Army 
National Guard Bureau to better understand the resourcing needs of the 
Guard.
                         equipment repair/reset
    Question. Congress has provided the Army with approximately $17 
billion per year to cover the costs to repair and replace equipment 
worn out by combat operations and prepare forces for rotations in 
support of OIF/OEF.
    In your view, is this level of funding sufficient to not only 
prepare Army forces for OIF/OEF but to also improve the readiness of 
nondeployed forces for other potential contingencies?
    Answer. I do not have sufficient information at this time to offer 
an assessment of this important matter. If confirmed I plan to devote 
significant attention to the matter.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. It is my understanding that all the Army's maintenance 
depots are currently operating at a level necessary to meet required 
workload, but they have the capacity to take on additional workload. It 
is my understanding that the depots can increase production if the rate 
of equipment return accelerates and that the Army constantly evaluates 
depot production and adjusts it to meet current and anticipated demand.
    Question. What additional steps, if any, do you believe should be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. I do not have sufficient information at this time to offer 
an assessment of how the Army might increase its capacity to fix 
equipment in reset. If confirmed, I would assess the Army's estimates 
on equipment and reset efforts.
    Question. What impact do you believe the decision to send 
additional Army forces to Afghanistan is likely to have on equipment 
available for continued operations in Iraq and for nondeployed unit 
training at home?
    Answer. I have been advised that in the near term, the deployments 
of additional Army forces to Afghanistan will place additional demands 
on scarce Army equipping assets.
                      army science and technology
    Question. What do you see as the role that Army science and 
technology programs will play in continuing to develop capabilities for 
current and future Army systems?
    Answer. I have not been fully briefed on specifically how Army 
science and technology programs will help develop future capabilities 
for future Army systems. This is an important area for better 
understanding our acquisitions process and improving our planning and 
budgeting for future requirements. If confirmed, I would assess the 
role of the programs in this context.
    Question. What in your view have been the greatest contributions of 
Army science and technology programs to current operations?
    Answer. I must reference my previous response and assure the 
Committee that I will evaluate the impact to current operations as 
well.
    Question. What metrics would you use, if confirmed, to judge the 
value and the investment level in Army science and technology programs?
    Answer. If confirmed, some of the metrics that I would use to judge 
the value and investment level in Army S&T programs would include the 
transitions of technology to the warfighter; adoption of technology 
into acquisition programs; and alignment of technology development to 
warfighter needs.
 army laboratories and research, development, and engineering centers 
                                 (rdec)
    Question. What role should Army laboratories play in supporting 
current operations and in developing new capabilities to support Army 
missions?
    Answer. Army laboratories should be working to generate state-of-
the-art science and technology applications to meet the operational 
needs of the force. There is a constant demand for new and innovative 
capabilities for soldiers, and the Army laboratories should play a key 
role in helping to meet the current needs and innovate for the future.
    Question. If confirmed, how will you ensure that the Army 
laboratories and R&D centers have the highest quality workforce, 
laboratory infrastructure, resources, and management, so that they can 
continue to support deployed warfighters and develop next generation 
capabilities?
    Answer. In assessing the role of the Army laboratories, I would 
attempt to understand all the facets presented in this question with 
respect to future requirements and capabilities needed.
    Question. Do you support the full utilization of authorities 
established by Congress under the Laboratory Personnel Demonstration 
program that is currently being run in many Army RDECs?
    Answer. Yes.
    Question. Do you believe that all RDECs in the Army's Research, 
Development, and Engineering Command (RDECOM) need enhanced personnel 
authorities in order to attract and retain the finest technical 
workforce? Would you support expansion of the Laboratory Personnel 
Demonstration authorities to all of RDECOM's laboratories and 
engineering centers?
    Answer. Yes.
    Question. Do you believe that the Army's laboratories and 
engineering centers should have a separate, dynamic personnel system, 
uniquely tailored to support laboratory directors' requirements to 
attract and retain the highest quality scientific and engineering 
talent?
    Answer. I do not have sufficient information at this time to offer 
an assessment of this important matter. If confirmed, I would study 
this and its potential benefits to the Army.
    Question. How will you assess the quality of Army laboratory 
infrastructure and the adequacy of investments being made in new 
military construction and sustainment of that infrastructure?
    Answer. If confirmed, I plan to look into this more deeply, so we 
have a better way of assessing laboratory needs in support of the 
Army's mission.
                 army test and evaluation (t&e) efforts
    Question. The Army's test and evaluation budget has not been 
certified as adequate by the Director of the Test Resource Management 
Center (TRMC) for fiscal year 2010. This is after a conditional 
certification received in fiscal year 2009. TRMC identified a shortfall 
of over $25 million for investments in T&E range sustainment, 
operations, and modernization.
    If confirmed, how will you address this shortfall?
    Answer. While I am not yet familiar with the specific concerns 
raised by the TRMC, I believe it is essential that the Department's 
test and evaluation infrastructure be adequately resourced.
    Question. How will you ensure that the Army's test and evaluation 
infrastructure is robust enough to ensure that new systems and 
technologies are tested to verify their combat effectiveness and 
suitability?
    Answer. If confirmed, I will become more familiar with the details 
of this requirement, and I will ensure that future Army program and 
budget submissions provide an appropriate level of funding for testing 
and evaluation, consistent with competing demands on departmental 
resources.
    Question. What metrics will you use to assess the quality of the 
Army's T&E infrastructure?
    Answer. I do not have sufficient information at this time to fully 
answer this question, but if confirmed, I would begin by looking at the 
Army's ability to conduct all critical testing requirements, which 
includes testing of both rapid acquisition programs as well as those 
programs on the Office of the Secretary of Defense Oversight List for 
Test and Evaluation.
    Question. If confirmed, how would you ensure that weapon systems 
and other technologies that are fielded by the Army are adequately 
operationally tested?
    Answer. I am committed to the principle of independent operational 
testing by organizations not directly affiliated with the programs that 
undergo testing. If confirmed, I will insist that established 
operational testing processes are followed in all cases and that Army 
equipment be fielded only after it is proven to meet established 
requirements and is safe and effective.
                  army information technology programs
    Question. What major improvements would you like to see made in the 
Army's development and deployment of major information technology 
systems?
    Answer. If confirmed, I would work to quickly leverage emerging 
technologies to meet security and operational capabilities. If 
confirmed, I would ensure that the Army IT systems provide warfighters 
and business managers with leading edge capabilities that efficiently 
enhance the effectiveness and efficiency of the force.
    Question. How will you encourage process and cultural change in 
organizations so that they maximize the benefits that new enterprise 
information technology systems can offer in terms of cost savings and 
efficiency?
    Answer. I recognize the importance of encouraging process and 
cultural change as a component of organizational and business 
transformation. I confirmed, I will assess how best that can be 
achieved within the Army so as to maximize the benefits of new 
enterprise information technology.
    Question. What is the relationship between Army efforts at 
implementing enterprise information technology programs and supporting 
computing services and infrastructure to support Army missions and 
efforts being undertaken by the Defense Information Systems Agency and 
the Assistant Secretary of Defense for Networks and Information 
Integration?
    Answer. I understand that the Army must coordinate and integrate 
the implementation of its information technology programs with ongoing 
efforts in DOD. This coordination and integration is critical to the 
success of both programs. If confirmed, I look forward to establishing 
relationships and working with my counterparts in DOD to achieve this 
goal.
    Question. What is your understanding of the Army's plan to adopt 
and deploy the Defense Integrated Military Human Resources System 
(DIMHRS)? What are the major issues you feel need to be addressed in 
that process?
    Answer. I have not been informed of the specific status of Army's 
implementation of the DIMHRS, however, it is my understanding that once 
fully implemented, this program will substantially improve the accuracy 
and efficiency of Army's ability to manage its personnel across DOD. If 
confirmed, I will carefully review the implementation plan and 
associated milestones. If my review identifies any weakness, I will 
make appropriate recommendations, after cross-Service coordination, to 
the responsible officials.
                         housing privatization
    Question. DOD has been engaged in the privatization of many of its 
support functions. Among the most significant privatization efforts is 
military family housing units and utility systems.
    In your view, what challenges does the Army face in implementing 
housing privatization and, if confirmed, how would you propose 
addressing those challenges?
    Answer. It is my understanding that there are three key challenges 
facing the Army in the continued implementation of housing 
privatization. First, the Army faces risk related to the capital market 
both for projects that have obtained financing and also for upcoming 
projects. To address this risk, the Army must continue to monitor the 
capital markets and evaluate opportunities associated with fluctuating 
interest rates, credit terms, and risk parameters. Second, the Army 
faces risk of underperformance by a private sector partner. To mitigate 
this risk, the Army should continue to monitor the financial health of 
each partner and the operational metrics we have established in the 
Army's portfolio and asset management program. The third risk facing 
Army housing privatization is the risk faced by any real estate 
investor: namely, that the expected occupancy, financial performance, 
or development targets will not be met. To mitigate and address this 
risk, the Army must continue to implement the best practices from 
private sector investment management to oversee existing housing 
privatization projects. Monitoring the key performance metrics 
associated with typical real estate transactions is critical to 
identifying and addressing potential issues.
    Question. What adjustments, if any, would you anticipate as a 
result of the current lending environment?
    Answer. It is my understanding the terms and conditions of lending 
are growing more restrictive. Projects are being required to set aside 
more cash in reserve for debt payments, and the rating agencies are 
downgrading the credit ratings on the existing debt, which has impacted 
the appeal of projects to investors. Many of the investors that have 
historically purchased military housing privatization debt are saddled 
by financial challenges that have hindered their ability to invest. If 
confirmed, I would work with the Secretary of the Army to ensure that 
the Department monitor the potential impacts of the financial markets 
on new and existing transactions.
    Question. What actions would you propose, if any, to accommodate 
installations where there are housing shortfalls beyond the ability of 
the current privatization agreement?
    Answer. I understand that DOD and the Army's longstanding positions 
are to rely first on housing in the local community. Where there are 
shortfalls in the local community, the Army has sought to educate 
community and business leaders in those communities on the Army's 
housing requirements and to encourage development to meet those 
requirements. I have been informed that the Army has already held 
several industry forums in local communities for Fort Drum, Fort Riley, 
and Fort Bliss. The Army has also used its domestic Army Family Housing 
lease authority as a bridging tactic until the local community is able 
to meet the Army's family housing requirements. If confirmed, I would 
assess the current policy and make recommendations to the Secretary for 
any actions needed in light of current conditions.
    Question. What are your views regarding barracks privatization?
    Answer. I do not have sufficient information to provide a clear 
assessment of barracks privatization. If confirmed, barracks 
privatization is an issue I plan to explore in depth with a view to 
furthering the policies of the Secretary of the Army.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services underinvest in their 
facilities compared to private industry standards. Decades of 
underinvestment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    What is your assessment of Army infrastructure investment?
    Answer. If confirmed, I will work with the Secretary of the Army to 
assess the sufficiency of the Army's current infrastructure investment 
strategy and implementation plan.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. If confirmed, I will aggressively work to ensure the 
infrastructure backlog is addressed. I will also work with the 
Secretary of the Army and DOD to seek congressional support for the 
President's budget request for Army installations and facilities.
            implementation of base closures and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process has resulted in the required closure or realignment of numerous 
major Army installations. The DOD installation closure process 
resulting from BRAC decisions has historically included close 
cooperation with the affected local community in order to allow these 
communities an active role in the reuse of property.
    If confirmed, would you change any of the existing efforts to 
assist affected communities with economic development, revitalization, 
and re-use planning of property received as a result of the BRAC 
process?
    Answer. If confirmed, and subject to the authority, direction, and 
control of the Secretary of the Army, I will assess our current efforts 
and consider if changes are warranted.
    Question. What, in your view, are the advantages or disadvantages, 
if any, on the use of no cost Economic Development Conveyances as a 
means of early property transfers under BRAC as opposed to holding out 
for full fair market value?
    Answer. I do not have sufficient knowledge of this matter to render 
a view. If confirmed, I would assess the advantages and disadvantages 
in light of current economic conditions and property transfer issues.
                   national security personnel system
    Question. Section 1106 of the National Defense Authorization Act 
for Fiscal Year 2008 restored the collective bargaining rights of 
civilian employees included in the National Security Personnel System 
(NSPS) established by DOD pursuant to section 9902 of title 5, U.S.C. 
Under section 1106, the Department retains the authority to establish a 
new performance management system (including pay for performance) and 
streamlined practices for hiring and promotion of civilian employees.
    What is your view of the NSPS, as currently constituted?
    Answer. I understand that the core purpose of the NSPS was to 
support a streamlined and flexible civilian compensation, staffing, 
classification, and performance management system. Such a system is 
viewed as essential to the effective management of the sort of mission-
oriented and results-driven civilian workforce that is vital to the 
success of DOD. I recognize the existing concerns with certain aspects 
of NSPS and understand that the NSPS Task Group's core draft 
recommendation to the Defense Business Board was to initiate a 
reconstruction of the system. If confirmed, I look forward to working 
with the Secretary of the Army and DOD to review the detailed findings 
and recommendations of the Defense Business Board and, if appropriate, 
reconstruct NSPS to ensure an optimum system.
    Question. If confirmed, how will you evaluate its success or 
failure to meet its goals?
    Answer. If confirmed, I would first review the findings and 
recommendations of the Defense Business Board and familiarize myself 
with reports from the General Accounting Office and the Office of 
Personnel Management and other assessments that may be available. I 
would work with DOD and Army leaders on internal program evaluations, 
seeking insights both into what works well in the extant system and 
into areas recommended for improvement.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. As a general principle, I support pay-for-performance and 
believe that employees' compensation should be based on their 
contribution to the Army's mission. If confirmed, I look forward to 
reviewing the Defense Review Board's comprehensive evaluation of NSPS 
and pay for performance and working with the Secretary of the Army and 
DOD to address the concerns identified.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. I am advised that the Department is challenged to meet 
increased civilian labor requirements in critical occupations and to 
develop human capital strategies responsive to these challenges. It is 
my understanding that there are situations in which specialized hiring 
authorities are required to provide sufficient qualified applicants to 
meet mission needs. However, before making recommendations for 
additional authorities, I would want to ensure that managers fully 
understand the flexibility of the authorities currently available. If 
confirmed, I will work with the Assistant Secretary for Manpower and 
Reserve Affairs to prompt managers to creatively and actively use 
available authorities and to explore the need for, and uses of, direct 
and expedited hiring authorities to assist in achieving the 
Department's human capital objectives.
    Question. In your view, is it viable in the long run for DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. It is my understanding that DOD operates a number of other 
personnel systems, such as Defense Civilian Intelligence Personnel 
System, a system for nonappropriated fund personnel, and laboratory 
demonstration projects. If confirmed, I will work with DOD, the Office 
of Personnel Management, the Secretary of the Army, and the Assistant 
Secretary for Manpower and Reserve Affairs to assess the appropriate 
number and types of personnel systems required for effective and 
efficient personnel management in the Department of the Army.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. It is my understanding that the NSPS Task Group recently 
briefed its draft recommendations to the Defense Business Board and 
that the Task Group recommended reconstructing NSPS. Depending on the 
content of the final report, legislation may be appropriate to ensure 
NSPS is on track to achieve its full potential.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. It is my understanding that the NSPS Task Group recently 
briefed its draft recommendations to the Defense Business Board and 
that the Task Group recommended reconstructing NSPS. Depending on the 
content of the final report, regulatory or policy changes may be 
appropriate to ensure NSPS is on track to achieve its full potential.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. The Army must carefully manage and develop its Senior 
Executive Service corps to meet the evolving workforce challenges 
facing the Department. As I understand it, members of the Senior 
Executive Service are increasingly being looked to as interchangeable 
with military flag officers in the critically important areas of 
acquisition, financial management, and the scientific and technical 
fields. To support this effort, I understand the Army's Senior 
Executive program focuses on the recruitment, assignment, and 
development of adaptive, multi-skilled senior civilian leaders, and 
that the current Senior Executive program includes periodic education 
and development opportunities and performance based evaluations.
    Question. Over the last 10 years, the Army budget has almost 
doubled, but the number of senior executives in the Department of the 
Army has remained almost unchanged.
    Do you believe that the Army has the number of senior executives it 
needs, with the proper skills to manage the Department into the future?
    Answer. If confirmed, I will carefully assess the Army's Senior 
Executive requirements and work with the Secretary of the Army and the 
Assistant Secretary of the Army for Manpower and Reserve Affairs to 
ensure that the Army has the right number of Senior Executives with the 
diverse set of skills and experiences required to lead the Department 
into the future.
    Question. Do you believe that it is appropriate for female soldiers 
to serve in positions in which they may be exposed to combat?
    Answer. Female soldiers make significant contributions to the 
Army's success and are an integral part of the All-Volunteer Force. All 
soldiers--male and female--are trained to fight in combat. As I 
understand the current law and policy, once properly assigned, female 
soldiers are subject to the same utilization policies as their male 
counterparts and, as required by their units' mission, may find 
themselves in combat. Female soldiers remain with their assigned units, 
perform their assigned duties, and fight as a team with male soldiers, 
as they have been trained to do.
    Question. What is your view of the current policy regarding women 
in combat with respect to female soldiers serving in Operation Iraqi 
Freedom and Operation Enduring Freedom?
    Answer. The Department no longer confronts the prospects of a Cold 
War linear battlefield. The irregular warfare and nonlinear battlefield 
of today's conflicts raise questions about the practical application of 
the policy regarding the assignment of women in combat regions. Women 
make up about 14 percent of the active Army, 23 percent of the Army 
Reserve, and 13 percent of the Army National Guard. Approximately 10 
percent of the forces deployed in support of overseas contingency 
operations are female soldiers. Women soldiers have been killed in 
action, have suffered wounds from hostile action, and have been held 
captive by our enemies. If confirmed, I would support the Secretary of 
the Army in having the most up to date information, assessing any 
changes sought to ensure compliance with all notification requirements 
in title 10.
    Question. What is your assessment of the Army's compliance with the 
requirements of the current ground combat exclusion policy?
    Answer. It is my opinion that women have and will continue to be an 
integral part of our Army team, performing exceptionally well in all 
specialties and positions open to them. However, I have no knowledge at 
this time as to the Army's compliance with the requirements of law and 
DOD policy relating to women in combat. If confirmed, I will make such 
an assessment, and work with the Secretary to take whatever actions are 
deemed necessary
    Question. In your view, should the current policy prohibiting the 
assignment of women to ground combat units be revised or clarified in 
any way to reflect changing roles for female soldiers and the changing 
nature of warfare?
    Answer. If after careful study and deliberation, the Secretary of 
the Army determines that there is a need to modify or clarify the 
policy, if confirmed, I will provide the Secretary of the Army with 
advice regarding the changes sought and ensure that the Army complies 
with the notification requirements set forth in title 10, U.S.C., 
section 652.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Army regarding religious 
practices in the military?
    Answer. I believe the Army's policies support religious tolerance 
and respect. It appears that Army and DOD regulations provide 
commanders and other leaders with ample guidance regarding the free 
exercise of religion in the Army. It is my understanding that these 
policies are consistent with the First Amendment.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular forms of 
dress or other articles with religious significance?
    Answer. I believe that the Army places a high value on the rights 
of soldiers to observe the tenets of their respective religious faiths. 
It is my understanding that the Army will approve requests for 
accommodation of religious practice, to include the wear of particular 
articles of faith, unless the accommodation will have an adverse impact 
on unit readiness, individual readiness, unit cohesion, morale, 
discipline, safety, and health. It is my understanding that Army 
policies are consistent with the First Amendment.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I understand that Army policies require chaplains to 
support all unit personnel, regardless of their beliefs.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Given the high stress soldiers and families face during 
times of war, Chaplains ought to play a key role in helping soldiers 
face the many issues confronting them. However, I have no working 
knowledge if military chaplains strike this balance as stated in the 
question.
                      support for wounded soldiers
    Question. Wounded soldiers from Operations Enduring Freedom and 
Iraqi Freedom deserve the highest priority from the Army for support 
services, healing and recuperation, rehabilitation, evaluation for 
return to duty, successful transition from active duty if required, and 
continuing support beyond retirement or discharge. Yet, as the 
revelations at Fort Stewart in 2003 and Walter Reed in 2007 revealed, 
the Army was not prepared to meet the needs of returning wounded 
soldiers.
    In your view, what were the most critical shortcomings in warrior 
care since 2001?
    Answer. This question and all those following through question #156 
focus on some of the most important set of issues affecting soldiers, 
their families and the ability of the Army to sustain and ready and 
vigorous force to fight the wars and maintain the peace. Since I have 
not been in the Department to witness first hand both the issues and 
solutions regarding the Army's care of warriors, if confirmed, I will 
make it a priority to work with the Secretary of the Army and all Army 
leadership as well as the Under Secretary for Personnel and Readiness 
and other elements at OSD to assess the current situation and support 
the Army in strengthening its capacity to take care of our wounded 
warriors.
    Question. What is your assessment of the Army's response?
    Answer. If confirmed, I will assess the effectiveness of the Army's 
response and continue to work with Congress to ensure our warriors 
receive the highest possible quality of care and support. If confirmed, 
I will support the Secretary of the Army in continuing to assess the 
Army's response.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from Active service? How effective are 
those programs?
    Answer. I am informed that the Army established the Army Wounded 
Warrior Program in 2004 to provide follow-on assistance to wounded 
personnel who had separated from Service. If confirmed, I will review 
this program and embrace a full partnership with the Department of 
Veterans Affairs to ensure the Army is playing its appropriate role in 
the care of all wounded soldiers separating from Service.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. If confirmed, I will assess continuously the effectiveness 
and efficiency of the Army's support for wounded personnel. I will 
implement strategies and, as appropriate, seek additional resources to 
ensure that the Army meets the needs of our wounded soldiers.
    Question. Studies following the revelations at Walter Reed point to 
the need to reform the Army's disability evaluation system.
    What is your assessment of the need to streamline and improve the 
Army's disability evaluation system?
    Answer. I understand that beginning on November 26, 2007, the Army 
initiated testing of a revamped physical disability program at Walter 
Reed Army Medical Center, streamlining the process used to determine 
soldiers' fitness for service or eligibility for military and veterans' 
benefits. I also understand that a joint DOD and Department of Veterans 
Affairs Disability Evaluation System Evolution Working Group is 
considering the overhaul of the disability system so that DOD would 
evaluate a soldier for fitness for duty and compensate the soldier for 
years of service, leaving to Veterans Affairs the responsibility to 
compensate the soldier for disability. Legislation would be required to 
make these changes.
    If confirmed, I will assess this system and work to streamline and 
improve it.
    Question. If confirmed, how will you address any need for change?
    Answer. If I am confirmed, I will listen to the information 
presented by the experts in this area. I will work with the 
stakeholders in the Army and with appropriate personnel in both the 
Departments of Defense and Veterans Affairs to determine what elements 
of the current system should be changed and how to best accomplish 
those changes.
             army medical action plan and wounded warriors
    Question. The Army Medical Action Plan (AMAP) has attempted to 
address the various needs of wounded warriors and their families.
    What is your view of the adequacy of the AMAP, and if confirmed, 
would you make any changes to the program?
    Answer. If confirmed, I will work with all the appropriate 
leadership in the Department to ensure continued refinement of the 
program to ensure that it is not only efficient and effective, but is 
flexible enough to meet the demands of changing strategic 
circumstances.
    Question. Staffing of Warrior Transition Units (WTUs) has been a 
major issue, especially at installations experiencing surges of 
redeploying troops.
    What are the impediments to fully staffing these units?
    Answer. If confirmed, I will look into any possible impediments to 
staffing of these units and take what actions are necessary to ensure 
its success in meeting the needs of soldiers and families.
    Question. If confirmed, will you pursue changes to improve 
assignment of military personnel and hiring of civilian personnel to 
improve staffing of WTUs?
    Answer. If confirmed, I will work to ensure that the systems put in 
place to maintain appropriate staffing in WTUs continue. WTUs must be 
capable of expanding or contracting as the population of wounded, ill, 
and injured soldiers changes. Working with the Secretary of the Army, I 
will continue the Army's practice of being a good steward of tax 
dollars while ensuring that any adjustments made do not reduce the 
ability of the Army to provide our wounded, ill, and injured soldiers 
and their families with the optimal care and support they deserve.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving soldiers in 
Iraq, Kuwait, and Afghanistan have been reported over the last several 
years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
Army failed to respond appropriately by providing basic services, 
including medical attention and criminal investigation of their charges 
and, ultimately, appropriate disciplinary action.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of sexual assaults 
the medical, psychological, and legal help that they need?
    Answer. While I have been advised that Army has implemented a 
Sexual Assault Prevention and Response Program, to include medical, 
advocacy, chaplaincy, investigative and legal services, this will 
require a personal assessment prior to making any evaluation of its 
success or what other actions need to be taken. If confirmed, I would 
conduct such an assessment.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults at deployed locations as well as 
home stations?
    Answer. I have not been briefed on steps taken by the Army to 
prevent additional sexual assaults and if confirmed, I will review such 
actions and assess their results.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. If confirmed, I will work with the Secretary of the Army to 
assess whether additional steps should be taken to support victims and 
hold offenders accountable.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. If confirmed, I will work with knowledgeable professionals 
to assess and ensure Army policies, procedures and programs, 
particularly regarding confidentiality and restricted reporting of 
sexual assaults, are enforced and performing effectively.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. If confirmed, I will closely monitor the Army's sexual 
assault response procedures to determine whether improvements are 
needed in the area of confidential reporting.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Army staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Sexual assault is a crime that has no place in Army's 
ranks. The role of senior Army leadership is to ensure an 
organizational climate where such behavior is not tolerated, and where 
victims feel free to report incidents without fear of reprisal.
    Question. If confirmed, what actions would you take to ensure 
senior management level direction and oversight of departmental efforts 
on sexual assault prevention and response?
    Answer. If confirmed, I will work with the Assistant Secretary for 
Manpower and Reserve Affairs and the Deputy Chief of Staff, G-1 to 
ensure the Army's Sexual Assault Response and Prevention Program 
continues to remain effective and receives the appropriate level of 
support.
                           officer shortages
    Question. A report issued by the Congressional Research Service 
(CRS) in July 2006 found that the Army projected an officer shortage of 
nearly 3,000, with the most acute shortfalls in the grades of captain 
and major with 11 to 17 years of service. The CRS also found that 
shortages would persist through 2013 unless accessions are increased 
and retention improves. In that time, in addition to aggressive 
recruiting efforts, the Army has increased officer accessions through 
Officer Candidate School (OCS) from the pool of most qualified enlisted 
members.
    What is your understanding of the reasons for the current 
shortfall, and what is your assessment of the steps the Army is taking 
to meet this mid-career officer shortfall?
    Answer. I have been informed that Army officer shortages stem from 
force structure growth undertaken to support conversion to more 
modular, self-sufficient, combat formations and to provide additional 
capabilities to meet the emerging threats in counterinsurgency warfare. 
If confirmed, I would review Army projections and steps being taken to 
resolve shortages.
    Question. In your view, what are the long-term consequences and 
challenges, if any, for both the officer and noncommissioned officer 
corps of increasing the relative size of the officer corps through OCS 
accessions?
    Answer. OCS graduates offer the Army a tremendous benefit; the OCS 
cohort has the highest officer retention rates of any commissioning 
program. In addition, OCS has consistently produced minority officer 
candidates at the highest rate of any of the commissioning sources. 
Also, OCS offers an avenue for civilians with college degrees, in many 
cases in academic disciplines greatly needed in the Army, to enlist in 
order to seek a commission.
    Question. If confirmed, what actions, if any, would you take to 
ensure adequate numbers of highly-qualified captains and majors are 
serving on Active Duty over the next 10 years?
    Answer. If confirmed, I will support the Army's strategy of 
retaining the capable and experienced company grade and junior field 
grade officers. I will support the continued development of nonmonetary 
incentives, to include: advanced education, quality of life, assignment 
to the region of choice, and other options that will best assist 
leaders in positively influencing an officer's decision to continue to 
serve.
    Question. If confirmed, what actions, if any, would you take to 
continuously monitor and ensure the quality of mid-career field grade 
and senior noncommissioned officers?
    Answer. If confirmed, I would assess Army retention policies and 
work with the appropriate Army Staff to become informed on the Army 
policies to retain the best and brightest officers and noncommissioned 
officers.
                      detainee treatment standards
    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you believe it is consistent with effective military 
operations for U.S. forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. If confirmed, how would you ensure that U.S. forces in 
Iraq and Afghanistan comply with the standards in the Army Field 
Manual, the DOD Directive, and applicable requirements of U.S. and 
international law regarding detention and interrogation operations?
    Answer. If confirmed, I will work to reinforce the Army's detention 
operations training program, which ensures that all U.S. forces 
involved in detainee and interrogation operations are aware of their 
obligations under U.S. and international law and applicable DOD 
policies.
    Question. In the past 2 years, significant changes have been made 
in Iraq in the way detention operations have been conducted in a 
counterinsurgency environment, including through the establishment of 
reintegration centers at theater internment facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq?
    Answer. As I understand it, the primary lessons learned include, 
first and foremost, that the Army must clearly communicate its 
commitment to ensuring that all soldiers adhere to the law of war and 
live up to the Army values, regardless of the circumstances. Second, 
soldiers who have violated the laws of war or have failed to uphold 
Army values must be held accountable. Another major lesson learned is 
that the Army may need to expand its detention operations force 
structure, particularly as to Military Police and Military 
Intelligence.
    If confirmed, I will ensure that the Army continues to assess and 
refine the force structure needed to successfully support the combatant 
commanders' detention operations missions.
    Question. What should be done to incorporate those lessons learned 
into DOD doctrine, procedures, and training for personnel involved in 
detention and interrogation operations?
    Answer. If confirmed, I will ensure that the Army continues to 
review its procedures and update its doctrine through the analysis of 
lessons learned and best practices derived from After Action Reviews 
conducted by returning units, and that lessons learned collected by the 
Center for Army Lessons Learned are used in the development and 
revision of Army policy, doctrine, and training.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
  army laboratories and research, development, and engineering centers
    1. Senator Levin. Dr. Westphal, what role should Army laboratories 
play in supporting current operations and in developing new 
capabilities to support Army missions?
    Dr. Westphal. It is my understanding that the Army laboratories are 
the science and technology performing organizations and have and will 
continue to play a major role in supporting current operations with 
best capabilities available. Through their broad range of investments 
in key strategic science and technology areas, they also provide 
critical new capabilities for soldiers.

    2. Senator Levin. Dr. Westphal, if confirmed, how will you ensure 
that the Army laboratories and research and development centers have 
the highest quality workforce, laboratory infrastructure, resources, 
and management, so that they can continue to support deployed 
warfighters and develop next generation capabilities?
    Dr. Westphal. Army Laboratories and Research, Development, and 
Engineering Centers play an important role in discovery, development, 
transfer and application of significant tools needed by all sectors in 
the Army and Department of Defense (DOD). As such, future investments, 
organization and operations should be reviewed in the context of 
overall business transformation for the Army to ensure that their 
capacity remains ``state of the art'' and continue to make a difference 
for soldiers in the battlefield, training and other requirements 
throughout the force. If confirmed, I will review the linkages on the 
business operations and work with the Secretary to ensure priorities 
are met.

           improvement of army business systems and processes
    3. Senator Levin. Dr. Westphal, DOD efforts to improve business 
systems by purchasing commercial, off-the-shelf systems frequently fail 
because too many people in DOD want to keep doing things the same way 
that they always have, and refuse to give up unique business processes 
and data requirements that don't fit into the new systems. Instead of 
instituting approaches that have worked in the private sector, DOD ends 
up spending hundreds of millions of dollars tailoring off-the-shelf 
systems to interface with obsolete systems and meet the unique demands 
of DOD users. Such changes have resulted in delay, duplication, added 
expense, and even system failure. If confirmed, will you have the 
authority needed to work across stovepipes and drive the change in the 
Army's business processes that is needed to effectively implement new 
business systems?
    Dr. Westphal. Yes. Pursuant to section 904 of the National Defense 
Authorization Act for Fiscal Year 2008, the Under Secretary of the Army 
is the Chief Management Officer of the Department, with the primary 
management responsibility for business operations. The Secretary of the 
Army is charged to assign to the Under Secretary such duties and 
authorities as are necessary to organize and administer the business 
operations of the Army effectively and efficiently, in accordance with 
the policies promulgated by the Secretary of Defense. In accordance 
with section 908 of National Defense Authorization Act for Fiscal Year 
2009, the Secretary of the Army acts through the Under Secretary in his 
role as Chief Management Officer to carry out initiatives for the 
business transformation of the Army. I believe that these provisions of 
law ensure that the Chief Management Officer has the authority 
necessary to effectively implement new business systems across the 
Army.

    4. Senator Levin. Dr. Westphal, will you report back to the 
committee on a regular basis on any obstacles that you are encountering 
in this effort, and on the progress that you have been able to make?
    Dr. Westphal. Yes.

                      investment in infrastructure
    5. Senator Levin. Dr. Westphal, witnesses appearing before the 
committee in recent years have testified that the Military Services 
under-invest in their facilities compared to private industry 
standards. Decades of under-investment in our installations have led to 
increasing backlogs of facility maintenance needs, created substandard 
living and working conditions, and make it harder to take advantage of 
new technologies that could increase productivity and save money. What 
is your assessment of Army infrastructure investment?
    Dr. Westphal. I believe that given the needs of soldiers and their 
families in time of war and significant stress to the force plus the 
high ops tempo requirements for readiness combined with work to achieve 
base realignment and closure (BRAC) requirements, means that this 
assessment must take priority. If confirmed, I would undertake to 
assess the sufficiency of the Army's current infrastructure investment 
strategy and implementation plan.

    6. Senator Levin. Dr. Westphal, if confirmed, what actions, if any, 
would you propose to increase resources to reduce the backlog and 
improve Army facilities?
    Dr. Westphal. I do not currently have enough information to propose 
any recommendations. I am concerned whether there is sufficient and 
timely military construction funding and if confirmed would focus on 
prioritizing these initiatives.

            implementation of base closures and realignments
    7. Senator Levin. Dr. Westphal, the 2005 BRAC process has resulted 
in the required closure or realignment of numerous major Army 
installations. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active role in 
the reuse of property. If confirmed, would you change any of the 
existing efforts to assist affected communities with economic 
development, revitalization, and re-use planning of property received 
as a result of the BRAC process?
    Dr. Westphal. If confirmed, I would assess the Army's current 
efforts to see if adaptations are warranted. I understand that in the 
past, there have been extensive negotiations with closing communities 
to facilitate property transfer using the appropriate authorities that 
support redevelopment. If confirmed, I would ensure the Army works 
closely with the local redevelopment authorities, the Office of 
Economic Adjustment, Governors, and other appropriate State and local 
officials to correctly transfer property at the time of closure.

    8. Senator Levin. Dr. Westphal, in your view, what are the 
advantages or disadvantages, if any, on the use of no cost Economic 
Development Conveyances (EDC) as a means of early property transfers 
under BRAC as opposed to holding out for full fair market value?
    Dr. Westphal. Current law and DOD policy provide for a full 
complement of conveyance authorities that include cost and no-cost EDC 
and provide for conveyances at fair-market value or conveyances at no 
cost, depending on the specific conditions and circumstances associated 
with the property. Current negotiations with BRAC 2005 communities are 
utilizing the full complement of authorities. It is my understanding 
that the Army supports the current law and does not see any benefit to 
reverting back to the previous preference for no-cost property 
conveyances.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                      army substance abuse program
    9. Senator McCaskill. Dr. Westphal, I introduced S. 459, the 
Substance Use Disorders Act of 2009 earlier this year based on problems 
with the Army Substance Abuse Program (ASAP), some of which were 
identified last fall at Fort Leonard Wood, MO. In recent years, ASAP 
has struggled to manage the increasing number of soldiers needing 
treatment, often following stressful deployments to Iraq and 
Afghanistan. In particular, there have been problems with understaffing 
and mismanagement. Commander notification and the lack of 
confidentiality in treatment may discourage servicemembers from seeking 
treatment for fear of disciplinary action. It is important to move from 
a climate of punishment towards a climate that reduces the stigma of 
seeking treatment. Based off S. 459, the Army recently instituted the 
Confidential Alcohol Treatment and Education Pilot (CATEP) program to 
allow complete anonymity for eligible soldiers who self-refer to this 
program. This is a good start. However, I am still concerned whether 
commanders should be notified in all instances of soldiers enrolling in 
ASAP and that the disciplinary option should be on the table no matter 
what. What approach do you take to how discipline should be used with 
troops who ask for help with getting substance use disorders treated?
    Dr. Westphal. I concur with the statement of Representative McHugh. 
I would further add that if I am confirmed, I would work with the 
Secretary to continuously ensure that we are firmly grounded in 
policies, directives, and congressional initiatives on these issues and 
able to assess and react to the needs of soldiers and the effectiveness 
of our forces.

    10. Senator McCaskill. Dr. Westphal, how does the Army plan to 
address the discipline issue with individuals who have sensitive 
security clearances or military occupation specialties? Specifically, 
how can these individuals be encouraged to seek treatment so that they 
get the help they need so that they can do their jobs effectively, 
rather than hiding substance use disorders that could ultimately impact 
their job performance?
    Dr. Westphal. I understand that the Army's priority is to get a 
soldier to treatment. The Army's CATEP program ensures that soldiers 
who voluntarily seek treatment will not have their enrollment in the 
program recorded in any personnel database for future reference. Of 
course, in cases where safety or national security is at stake, a 
soldier may be reassigned to other duties during his or her treatment.

    11. Senator McCaskill. Dr. Westphal, in Representative McHugh's 
prepared responses for the committee, he says that, ``It appears that 
there is a shortage of ASAP counselors at some installations.'' Indeed, 
the shortage of counselors is systemic to the Army. We even have 
whistleblowers at Fort Leonard Wood, MO, coming forth with concerns 
about the ASAP. What are the Army's views on the adequacy of ASAP 
counselors in the Army, and what specific measures does the Army plan 
to mitigate the shortage and lack of resources?
    Dr. Westphal. I understand that the Army is fully aware of, and 
concerned about, the shortage of qualified counselors--often 
exacerbated by competition between the military and civilian sectors 
for the same limited pool of care providers. The Army has established 
several programs to address this shortage, to include developing 
relationships with State substance abuse certification boards and 
improving internship and training programs. If confirmed, I would work 
with the Secretary to do all that we can to meet these needs and 
correct shortages where needed most.

    12. Senator McCaskill. Dr. Westphal, an area of substance abuse 
disorders in the Army that remains understudied and misunderstood is 
that of prescription drug abuse, particularly for those soldiers who 
are deployed in theater in Iraq and Afghanistan. Often these 
individuals are easily prescribed drugs that can be extremely addictive 
and harmful over time. What is the Army doing to include prescription 
drug abuse in the ASAP, and what data is available on the numbers of 
soldiers who are referred for treatment for prescription drugs in the 
Army?
    Dr. Westphal. I understand that treating soldiers for prescription 
drug abuse is a significant component of the ASAP. A physician reviews 
the case of every soldier who tests positive for prescription drug use 
and determines whether or not the drug at issue was used lawfully and 
in accordance with prescribed practices.
                                 ______
                                 
                Questions Submitted by Senator Kay Hagan
                             army uniforms
    13. Senator Hagan. Dr. Westphal, whether soldiers are serving 
overseas or training within the continental United States, in 
preparation for deployment, they need uniforms that are capable of 
defending against insect borne diseases such as Lyme disease and Rocky 
Mountain spotted fever. After over 15 years of study and research, the 
Army decided to adopt the factory treatment of uniforms with 
permethrin, as the most effective solution, to protect soldiers against 
insect borne diseases. The adoption of this technology has been 
recommended by the Army's subject matter experts, including the Surgeon 
General and Uniform Board. However, contractual management, logistics, 
and funding jeopardize delays in providing the Army with factory 
treated permethrin uniforms until 2012.
    In order for this technology to be properly implemented and 
supervised, I believe that the Army needs to establish the protocol 
that the contract management be established directly between the Army 
and the uniform treatment vendor. This is a very important difference 
from the Defense Logistics Agency/Defense Supply Center Philadelphia 
(DLA/DSCP) practice of relegating the oversight of this technology to a 
subcontract through the existing cut and sew uniform manufacturers. A 
direct contract to treatment vendors can provide oversight incentives 
to continue to improve the quality and the safety of this program.
    This is a complex technology that is federally regulated by the 
Environmental Protection Agency (EPA). The EPA recognizes that each 
vendor's treatment has different characteristics particularly regarding 
efficacy and safety. Assigning responsibility of supervising the 
production of this product through the DLA/DSCP process would 
negatively impact the quality, safety, and efficacy of the product. 
Moreover, inserting an unrelated vendor into the process adds an extra 
layer of cost, as the cut and sew vendor adds margin to the cost from 
the treatment vendors.
    Please provide your thoughts on establishing the protocol that 
contract management of Army permethrin treated uniforms be established 
directly between the Army and the uniform treatment vendor.
    Dr. Westphal. I am unable to provide a detailed assessment at this 
time. If confirmed, I would fully review this matter.

    14. Senator Hagan. Dr. Westphal, in accordance with the Acquisition 
Reform Bill, contractual management of Army permethrin treated uniforms 
between the Army and the uniform treatment vendor saves money as it 
removes the ``middle man'' (cut and sew vendors) from adding additional 
margin of costs. Can you please provide your thoughts?
    Dr. Westphal. I am unable to provide a detailed assessment at this 
time. If confirmed, I would fully review this matter.

    15. Senator Hagan. Dr. Westphal, where will the money come from 
within the Army budget to fund the treatment of all Army combat 
uniforms with permethrin?
    Dr. Westphal. At present, I am not familiar with the Army's plans 
with respect to this subject. If confirmed, I would fully review this 
matter.

                      upgrading m24 sniper rifles
    16. Senator Hagan. Dr. Westphal, Army sniper teams in Iraq and 
Afghanistan utilize the M24 sniper rifle to respond to Improvised 
Explosive Devices and insurgent ambushes. The weapons system is 
outdated, and soldier input has propelled the Army to determine that it 
is necessary and cost-effective to upgrade 3,000 M24s to meet the 
changing operational requirements on the ground and counter threats, 
most notably: engage targets during times of limited visibility and at 
night; increase range from 800 to 1,200 yards; improve ergonomics and 
stock configuration to enable maneuverability within vehicles and small 
spaces within urban areas; and increase concealment when transporting 
and operating the weapon.
    Congress appropriated $3.4 million in the Fiscal Year 2009 Defense 
Appropriations Act for the Army to upgrade the M24 sniper rifle using 
operation and maintenance funding and an existing refurbishment 
contract with the company Remington, to do an engineering change 
proposal (ECP). The fiscal year 2009 funding was moved to procurement, 
making an ECP under the existing contract no longer feasible. The 
Fiscal Year 2010 House Defense Appropriations Bill would appropriate an 
additional $3.0 million for M24 upgrades. Congress is appropriating the 
funds in response to validated operational needs statements from Army 
units, who require an upgraded M24 sniper rifle for operations in 
theater. What are the Army's plans to expedite the M24 upgrade to meet 
the immediate needs of the Army's sniper teams?
    Dr. Westphal. If confirmed, I will review this matter to determine 
the best way to meet the immediate needs of the Army's sniper team. I 
will work with Congress in reviewing funding needs and ongoing program 
development.

    17. Senator Hagan. Dr. Westphal, what can be done to provide 
upgraded M24s to units that have an urgent need and is there anything 
we need to do in Congress to help with the upgrade?
    Dr. Westphal. I am unable to provide a detailed assessment at this 
time. If confirmed, ensuring our sniper team's needs are fully met 
would be a top priority.

    18. Senator Hagan. Dr. Westphal, given that Remington owns the 
technical data package for the M24, how will the Army compete the 
upgrade?
    Dr. Westphal. I do not have detailed knowledge on this matter, but 
it is my understanding the technical data of the M24 will not be 
disclosed during the competition to select a vendor to upgrade sniper 
weapons that are currently fielded.

                         m4/replacement carbine
    19. Senator Hagan. Dr. Westphal, on July 1, 2009, the Army received 
control of the technical data package (design rights) to the existing 
M4 carbine weapons system. Prior to this transfer, Colt Defense LLC had 
been the sole source provider of the M4 carbine for the U.S. military 
for the past 15 years, due to a legal settlement between the Federal 
Government and Colt. The last of the 473,000 M4 weapons is expected to 
be fielded in 2010. It is important that we replace the M4 with a new 
state-of-the-art weapons system that meets the operational requirements 
of our military in theater. Is the Army committed to a full and open 
competition for the follow-on weapon to the M4?
    Dr. Westphal. I am unaware of any currently planned competition to 
replace the M4.

    20. Senator Hagan. Dr. Westphal, please provide your thoughts on 
updating the M4 carbine requirement and the solicitation process for a 
future weapon.
    Dr. Westphal. My understanding is consistent with the response 
provided by Representative McHugh.

    21. Senator Hagan. Dr. Westphal, does the Army plan on awarding the 
replacement weapon contract to one manufacturer or dividing it among 
several companies?
    Dr. Westphal. I have not been briefed on the Army's procurement 
plans for the carbine requirement.

               military housing privatization initiative
    22. Senator Hagan. Dr. Westphal, Congress established the Military 
Housing Privatization Initiative (MHPI) in 1996 as a tool to help the 
military improve the quality of life for its servicemembers by 
improving the condition of their housing. The MHPI was designed and 
developed to attract private sector financing, expertise, and 
innovation to provide necessary housing in a more efficient manner. The 
Office of the Secretary of Defense has delegated to the Military 
Departments the implementation of MHPI and authorized them to enter 
into agreements with private developers selected in a competitive 
process.
    Financing for military housing privatization in the current market 
is challenging and entails high relative lending rates of interest. 
This impedes the restricting of existing military housing transactions, 
prevents the construction of new military family housing, and limits 
the scope of work. Transactions such as the one the Army agreed to 
involving construction of privatized military housing in South Korea is 
one of those projects affected. Has the current financial market 
negatively impacted the Army's ability to move forward with any of its 
privatization initiatives? If so, how can we assist the Army?
    Dr. Westphal. My understanding is consistent with the response 
provided by Representative McHugh.

    23. Senator Hagan. Dr. Westphal, the financial crisis in the 
commercial mortgage backed securities market has negatively impacted 
the traditional firms that have credit enhancement capabilities to the 
private activity bonds used to finance MHPI projects. Has the Army 
approached Fannie Mae or Freddie Mac with this opportunity?
    Dr. Westphal. My understanding is consistent with the response 
provided by Representative McHugh.

    24. Senator Hagan. Dr. Westphal, the MHPI program authority is 
slated to expire in 2010. What can we do to assist the Army and DOD to 
ensure that this program remains in effect after 2010?
    Dr. Westphal. It is my understanding that the authorities outlined 
in the National Defense Authorization Act for Fiscal Year 1996 (Public 
Law 104-106, February 10, 1996) section 2885 were made permanent by the 
National Defense Authorization Act for Fiscal Year 2005 (Public Law 
108-375, October 28, 2004) section 2805 ``Repeal of Limitations.''
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                           army modernization
    25. Senator Inhofe. Dr. Westphal, what do you believe is a 
reasonable and realistic procurement timeline for a new line of Army 
combat vehicles? Is 5 to 7 years realistic?
    Dr. Westphal. I understand that the Army is currently conducting 
requirements analysis to determine the appropriate requirements. At 
this time I am not yet in a position to offer an informed assessment of 
these efforts.

    26. Senator Inhofe. Dr. Westphal, what are your personal feelings 
regarding the Secretary of Defense's cancellation of FCS/ground 
vehicles?
    Dr. Westphal. I strongly support Secretary Gates' decision, which 
includes launching a new Army combat vehicle modernization program with 
reevaluated requirements and acquisition approach to better meet the 
needs of our soldiers as rapidly as possible.

                         reset/recapitalization
    27. Senator Inhofe. Dr. Westphal, what are your concerns with the 
high usage rates of Army wheeled and combat vehicles in Iraq and 
Afghanistan?
    Dr. Westphal. I concur with Representative McHugh's statement.

    28. Senator Inhofe. Dr. Westphal, as we draw down in Iraq, do you 
believe it is important to adequately reset, and upgrade where 
appropriate, our combat equipment?
    Dr. Westphal. I concur with Representative McHugh's statement.

                              end strength
    29. Senator Inhofe. Dr. Westphal, how will you recommend DOD fund 
the 22,000 soldier end strength increase? Should it be resourced 
internally or externally from the Army budget?
    Dr. Westphal. My understanding is consistent with the response 
provided by Representative McHugh.

    30. Senator Inhofe. Dr. Westphal, are you concerned that this end 
strength increase will hinder other Army priorities like modernization 
and equipment reset?
    Dr. Westphal. An increase in end strength is necessary to take 
pressure off our deploying forces. The Army must invest in 
modernization and equipment resets to ensure our soldiers maintain the 
highest levels of combat effectiveness within current fiscal 
constraints. If confirmed, I would work with the Secretary, OSD, and 
Congress to do all that we can to ensure that Army priorities for 
modernization and equipment reset are consistent with the needs of the 
force in time of war.

                               personnel
    31. Senator Inhofe. Dr. Westphal, what will the effects on the Army 
Force Generation cycle be if the Iraq drawdown is delayed while we 
simultaneously double our troop strength in Afghanistan?
    Dr. Westphal. It is my understanding that the Army Force Generation 
(ARFORGEN) process was specifically designed to have some flexibility 
to support varying levels of demand over time. An Iraq drawdown delay 
would temporarily increase the commitment of Army forces. I would 
expect that the flexibility in the ARFORGEN process might mitigate the 
impact, but I believe that an extended delay in the drawdown and the 
corresponding decrease in dwell time are likely to result in increased 
stress on soldiers and families.

    32. Senator Inhofe. Dr. Westphal, what level of troop increase in 
Afghanistan or Iraq would cause a change to the current dwell time goal 
of 1:2?
    Dr. Westphal. I have been informed that the Army is on track to 
achieve 1:2 Active component and 1:4 Reserve component dwell-to-
deployment ratios by 2011. I understand, however, that this projection 
is based on the current, validated allocation of forces, which requires 
the Army to have 20 deployable Brigade Combat Teams (BCTs) at any time. 
In my view, an increase in troop levels in Afghanistan might impact 
these projections and could delay the Army's ability to achieve the 
desired dwell ratios.

                           threat preparation
    33. Senator Inhofe. Dr. Westphal, how should the Army be postured 
to counter the full spectrum of threats in the near- and far-term as 
well as be able to provide combatant commanders the forces they need?
    Dr. Westphal. In my view, the Army must provide combatant 
commanders with expeditionary forces prepared to counter the full 
spectrum of threats. I would envision such forces as comprising a mix 
of versatile organizations, capable of operating without large, fixed 
bases of support; comfortable in diverse cultural environments; and 
able to fight, if necessary, upon arrival in an operational area.
                                 ______
                                 
    [The nomination reference of Dr. Joseph W. Westphal 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 11, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Joseph W. Westphal, of New York, to be Uner Secretary of the Army, 
vice Nelson M. Ford.
                                 ______
                                 
    [The biographical sketch of Dr. Joseph W. Westphal, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Joseph W. Westphal
    Dr. Westphal is University System Professor of Political Science at 
the University of Maine (currently on leave). He is also Professor of 
Environmental Studies at The New School where he also served as Provost 
and Senior Vice President for Research until December 2008.
    From 2002 to 2006, Dr. Westphal was the Chancellor of the 
University of Maine System and Professor of Political Science at the 
University of Maine. The System is composed of 7 universities and 10 
continuing education centers with a total enrollment of over 36,000 
students and an operating budget of more than $600 million.
    Dr. Westphal received his Bachelor's degree from Adelphi 
University, his master's degree from the University of Oklahoma State 
and his Ph.D. in political science from the University of Missouri-
Columbia. He spent 12 years on the faculty of Oklahoma State 
University. While on leave from the university, Dr. Westphal worked in 
the Department of the Interior on issues related to water development. 
Dr. Westphal also worked as a budget analyst and assistant to the 
chairman of the U.S. House Committee on the Budget.
    From 1988 to 1995, Dr. Westphal worked in the U.S. Congress in 
various capacities from directing a congressional caucus in the House 
and Senate to working on Members staff. After leaving Congress in 1995, 
Dr. Westphal moved to the Clinton administration as Senior Policy 
Advisor for Water Resources at the U.S. Environmental Protection 
Agency. He also taught public policy as an Adjunct Professor at 
Georgetown University.
    In 1998, Dr. Westphal was confirmed by the U.S. Senate as Assistant 
Secretary of the Army for Civil Works. In 2001, Dr. Westphal served 
briefly as Secretary of the Army (Acting).
    Dr. Westphal recently served as a member of the Obama-Biden 
Transition for the National Security Team working on Defense matters. 
He is a member of the Adelphi University Board of Trustees, the 
Santiago College Board and the Hydro-Photon Board Inc. Board of 
Directors. He is also a member of the Advisory Committee to the U.S. 
Southern Command.
    Dr. Westphal is married with four adult children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Joseph W. 
Westphal in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph W. Westphal.

    2. Position to which nominated:
    Under Secretary of the Army.

    3. Date of nomination:
    June 11, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 26, 1948; Santiago, Chile.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda McMaster.

    7. Names and ages of children:
    James Westphal, 40; Heather Westphal Miele, 38; Amy Westphal 
Stewart, 34; and Lindsay Westphal, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    McLean High School, McLean, VA; 1965-66 H.S. 1966.
    Adelphi University, Garden City, NY, 1966-70, B.A., 1970.
    Oklahoma State University, Stillwater, OK, 1971-73, M.A., 1973.
    University of Missouri, Columbia, MO, 1973-75, Ph.D., 1980.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Policy Advisor, U.S. Environmental Protection Agency, 
Washington DC; (1997-1998).
    Assistant Secretary of the Army-Civil Works (1998-2001), Secretary 
of the Army (Acting, March-June 2001).
    Senior Policy Council, Patton Boggs LLC, Washington DC, (July 2001-
March 2002).
    University System Professor, University of Maine System, Bangor, 
ME, (April 2002-June 2006).
    Provost, The New School University, New York, NY, (July-December 
2008).
    Professor, The New School University, New York, NY, (January 2008-
Present).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
Federal Government Experience:
    As a professor at Oklahoma State University, I went on leave on an 
Intergovernmental Personnel Act (IPA) agreement as follows: 

          -  1980, U.S. Department of the Interior, Office of Water 
        Resources Technology, Office of the Assistant Secretary for 
        Land and Water
          -  1980-1981, U.S. House of Representatives Committee on the 
        Budget
          -  1987-1988, Senior Social Scientist, Institute for Water 
        Resources, U.S. Army Corps of Engineers. On leave from Oklahoma 
        State University on an IPA agreement.

    Staff member of the Office of Water Policy, U.S. Department of the 
Interior, summer 1982.
    Executive Director, Congressional Sunbelt Caucus, U.S. House of 
Representatives, Mike Andrews (D-TX), Lindsay Thomas (D-GA), E. Clay 
Shaw (R-FL) Co-Chairmen. 1988-1995.
    Special Assistant, Office of Senator Thad Cochran (R-MS), 1995-
1997.
State Government:
    Member of the Faculty, Oklahoma State University, 1975-1987.
    Member, State of Maine Science and Technology Board (2002-2006).
    Special Assistant, Director of Congressional Sunbelt Caucus, Office 
of Senator Thad Cochran, 1995-1997.
    Executive Director, Congressional Sunbelt Caucus and Sunbelt 
Institute, 1988-1995.
    Member, SOUTHCOM Commander's Panel (2006-Present).
    Unpaid Consultant, USAID and USIA (By invitation for short periods 
between 1982 and 1995).
    Commissioner, President's National Recreation Lakes Commission 
(1999).
    Member, President's Drought Commission (2000).
    Chairman, U.S. Coastal America Program (1998-2001).
    Member, President's Coral Reefs Task Force (1999 to 2001).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Trustee, Adelphi University, Garden City, NY.
    Director, Hydro Photon Inc, Blue Hill, ME.
    Director, Santiago College Board of Trustees, Washington, DC.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See response to question 11 above.
    Member, Partner University Fund Grant Review Committee, Washington, 
DC.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Payne County Democratic Party Chair, Stillwater, OK, 1983-1984.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    N/A.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $100, Frank Davis, Vermont Legislature.
    $250, ACTBLUE Donation to Democrats/Greg Julian for Congress.
    $100, Miles Theeman for City Council.
    $1,000, Obama for President.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Silver Medal for Superior Service, Awarded by the Administrator, 
U.S. Environmental Protection Agency.
    The Silver Order of the de Fleury Medal, Awarded by the Chief of 
Engineers Army Engineer Association-Engineer Regiment.
    The Outstanding Civilian Service Medal, Awarded by the Chief of 
Staff of the Army, U.S. Department of the Army.
    Decoration for Distinguished Civilian Service, Awarded by the 
Secretary of the Army, U.S. Department of the Army.
    Phi Kappa Phi.
    Pi Sigma Alpha.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Politics of Infrastructure,'' Social Research Quarterly 75, 
No. 3 (Fall 2008).
    ``Coastal America's Corporate Wetlands Restoration Partnership: An 
Effective Public-Private Partnership,'' National Environmental 
Enforcement Journal 15 (November 2000).
    ``Public Opinion and the Equal Rights Amendment,'' with M. Daniels 
and B. Darcy in Women Leaders in American Politics, Eds. James David 
Barber and Barbara Kellerman (Englewood Cliffs, NJ; Prentice Hall), pp. 
41-46 (1986).
    Assessment of Economic, Social, and Institutional Impacts of 
Groundwater Regulation, with D. Kent and H. Mapp. Oklahoma State 
University Water Research Center. USDI, Project A-093 (1983).
    ``The ERA Won-At Least in the Opinion Polls,'' with M. Daniels and 
Bob Darcy, P.S. 15 (Fall, 1982).
    The Potential for Groundwater Management in the West: A 
Symposium,'' Ground Water 20 (January-February 1982).
    Integrating Water Quality Management and Water Resources Planning 
in Oklahoma, with R.D. Ireland, Oklahoma State University Water 
Resources Council (1981).
    ``Commitments, Priorities, and Organizaitonal Options for Water 
Resource Planning in Oklahoma,'' with James J. Lawler, Oklahoma Water 
Resources Research Institute (August 1979).
    Intergovernmental Aspects of Water Transfer in Oklahoma, with James 
Lawler, Oklahoma State University Water Research Center, USDI, Tech. 
Rept. A-084, Contract No. 14-34-0001-9038 (1979).
    The Use of Resources and Assessment of Needs in Information 
Transfer for Science and Technology Issues by the Oklahoma Legislature, 
with Thomas Kielhorn, The Oklahoma State Legislature Council and the 
National Science Foundation (1978).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Joseph W. Westphal.
    This 6th day of July, 2009.

    [The nomination of Dr. Joseph W. Westphal was reported to 
the Senate by Chairman Levin on August 4, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 16, 2009.]
                              ----------                              

    [Prepared questions submitted to Juan M. Garcia III by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I am not currently aware of any specific need for 
modifications to Goldwater-Nichols. If confirmed I will notify the 
Under Secretary and Secretary of the Navy of any changes of which I 
become aware.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I am not aware of any specific areas in which modification 
would be appropriate.
                                 duties
    Question. Section 5016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Navy for Manpower and Reserve Affairs shall 
have ``as his principal duty the overall supervision of manpower and 
Reserve component affairs of the Department of the Navy.''
    If confirmed, what duties do you expect that the Secretary of the 
Navy will prescribe for you?
    Answer. I believe the Secretary of the Navy will require me to 
provide overall supervision and oversight of manpower and Reserve 
component affairs for the Navy and Marine Corps. I would be responsible 
for developing integrated policies and programs related to military 
personnel (Active and Reserve components) and the civilian workforce.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of the Navy for Manpower 
and Reserve Affairs?
    Answer. If confirmed, I will apply my experience as a naval officer 
and in government service to further my understanding and knowledge of 
the Navy, its people and organizations. I will diligently evaluate the 
challenges it faces and the resources necessary to sustain and 
transform it. I will seek advice and counsel from the military and 
civilian personnel of the Department and from Members of Congress and 
their staff.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    Question. The Secretary of the Navy.
    Answer. I will work with the Secretary of the Navy to help him 
achieve his goals, particularly those involving manpower issues. My 
role will be defined in part by powers he may choose to delegate to me.
    Question. The Under Secretary of the Navy.
    Answer. In his position as the Chief of Staff and Chief Operating 
Officer of the Department, the Under Secretary will play a significant 
role in prioritizing and synchronizing the efforts of the Assistant 
Secretaries of the Navy. If confirmed, I would establish a close, 
direct, and supportive relationship with the Under Secretary of the 
Navy.
    Question. The other Assistant Secretaries of the Navy.
    Answer. I would coordinate with them on our combined interests as 
we work together to support the Secretary's goals.
    Question. The General Counsel of the Department of the Navy.
    Answer. The General Counsel is the senior civilian legal advisor to 
the Secretary, the Under Secretary, and the Assistant Secretaries and 
their staffs. I expect to consult and rely upon him/her on a variety of 
legal issues in discharging my responsibilities.
    Question. The Judge Advocate General of the Navy.
    Answer. As the senior uniformed legal advisor to the Secretary of 
the Navy, providing legal and policy advice on all legal matters not 
under the cognizance of the General Counsel, I expect to interact and 
seek legal advice as it pertains to those matters requiring a military 
legal perspective when discharging the responsibilities assigned to me.
    Question. The Naval Inspector General.
    Answer. The Naval Inspector General is the senior investigating 
official in the Department of the Navy and the principal advisor to the 
Secretary of the Navy, Chief of Naval Operations and the Commandant of 
the Marine Corps on all matters concerning inspection, investigations, 
and audit follow-up. If confirmed, I will establish and maintain a 
close and professional relationship with the Naval Inspector General.
    Question. The Chief of Legislative Affairs of the Department of the 
Navy.
    Answer. The Chief of Legislative Affairs is responsible for 
developing legislative strategies for the Navy. If confirmed I will 
work closely with him as it relates to the Department's legislative 
requirements for manpower and personnel.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. I would coordinate and work with the Under Secretary of 
Defense for Personnel and Readiness on areas of mutual concern to 
support the goals of the Secretary of the Navy and the Secretary of 
Defense.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. I would coordinate and work with the Principal Deputy Under 
Secretary of Defense for Personnel and Readiness on areas of mutual 
concern to support the goals of the Secretary of the Navy and the 
Secretary of Defense.
    Question. The Chief of Naval Operations.
    Answer. The Chief of Naval Operations has a direct reporting 
relationship to the Secretary of the Navy. If confirmed, I would 
support the Secretary on areas of manpower policy as well as program 
execution.
    Question. The Vice Chief of Naval Operations.
    Answer. I would support the Under Secretary's close relationship 
with the Vice Chief of Naval Operations, as required, on manpower 
matters.
    Question. The Commandant of the Marine Corps.
    Answer. The Commandant has a direct reporting relationship to the 
Secretary of the Navy. If confirmed, I would support the Secretary on 
areas of manpower policy as well as program execution.
    Question. The Assistant Commandant of the Marine Corps.
    Answer. If confirmed, I will work very closely with the Assistant 
Commandant of the Marine Corps to ensure equitable manpower programs 
exist across the Department of the Navy.
    Question. The Deputy Commandant of the Marine Corps for Manpower 
and Reserve Affairs.
    Answer. If confirmed, I will work very closely with the Deputy 
Commandant of the Marine Corps for Manpower and Reserve Affairs to 
ensure equitable manpower programs exist across the Department of the 
Navy.
    Question. The Surgeon General of the Navy.
    Answer. I would look to the Surgeon General for advice and insights 
on the spectrum of medical affairs affecting our Naval personnel.
    Question. The Chief of Navy Reserve.
    Answer. I would work closely with the Chief of Navy Reserve on the 
numerous operational and policy matters affecting our Reserve 
component.
    Question. The Commander, Marine Forces Reserve.
    Answer. I would work closely with Commander, Marine Forces Reserve 
on the numerous operational and policy matters affecting our Reserve 
component.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that my life, work and family experiences have 
provided me with the qualifications necessary to hold this position. As 
the son of a career naval aviator, I grew up as a Navy dependent; 
living, moving, going to school, and waiting out my father's 
deployments on Navy bases. As a naval officer, I served 13 years on 
active duty, completing five tours and four deployments. Now during my 
fifth year as a naval reservist, I have had the opportunity to command 
a Reserve Squadron. Trained in law and management at Harvard Law School 
and the John F. Kennedy School of Government, I've crafted public 
policy both as a White House Fellow and as an elected legislator. All 
of these experiences have taught me to understand and appreciate the 
demands, challenges and experiences of today's Active Duty service 
personnel, their Reserve counterparts, and their families. They have 
also taught me how to appreciate the bureaucratic barriers, the 
competing priorities and the processes to change.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of the Navy for Manpower and Reserve 
Affairs?
    Answer. If confirmed, my challenges will include providing for the 
health and welfare of our sailors, marines, and their families, 
continuing efforts towards Active/Reserve force integration, 
attracting, recruiting and retaining top talent both for our civilian 
and military workforce (particularly in skill sets required for OCO), 
maintaining the superior pay and benefits package our sailors and 
marines deserve, and ensuring the best care for our wounded warriors 
and their families.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. I will work within the DON-DOD framework to address 
manpower costs while supporting our servicemen and women and their 
families.
          systems and support for wounded sailors and marines
    Question. Sailors and marines wounded and injured in Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) deserve the 
highest priority from the Navy and Marine Corps for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from active duty if required, and 
continuing support beyond retirement or discharge.
    In your view, what were the most critical shortcomings in warrior 
care, both Active and Reserve, since 2001?
    Answer. I have not had an opportunity to be fully briefed on any 
shortcomings in wounded warrior care. If confirmed, a review of the 
systems and support for wounded sailors and marines will be a top 
priority. Our Nation and our Navy owe these wounded sailors and marines 
a debt that can never be repaid.
    Question. What is your assessment of the effectiveness of the Navy 
and Marine Corps response?
    Answer. The Navy and Marine Corps have a longstanding tradition and 
record of success in caring for the medical needs of its personnel and 
their families. The Navy established the Safe Harbor program, and the 
Marine Corps established the Wounded Warrior Regiment to improve 
support services and speed delivery of coordinated care. If confirmed, 
I will continue to evaluate the effectiveness of these programs, 
identify best practices and implement process improvements to optimize 
the success of these programs.
    Question. What measures would you take, if confirmed, to facilitate 
the seamless transition of wounded, ill, and injured sailors and 
marines from the Department of Defense (DOD) to the Department of 
Veterans Affairs?
    Answer. If confirmed, I will work to foster a seamless transition 
for continuity of service between the Navy and Veterans Administration 
systems of care, to include the much discussed electronic medical 
records. Continued collaboration between DOD and the Department of 
Veterans Affairs will further strengthen the transition of wounded, 
ill, and injured sailors and marines.
    Question. How do the Navy and Marine Corps provide follow-on 
assistance to wounded personnel who have separated from the Service? 
How effective are these programs?
    Answer. As I understand, both the Navy's Safe Harbor Program and 
the Marine Corps' Wounded Warrior Regiment extend support to wounded 
personnel should they be separated or retire due to medical issues, up 
through and including reintegration to a community. Our heroes deserve 
our continued support even after leaving active service. I have not had 
an opportunity to personally assess these programs, but if confirmed I 
will ensure that these programs provide the best service possible to 
our very deserving sailors and marines
    Question. What is your assessment of the need to streamline and 
improve the Navy's disability evaluation system? If confirmed, how will 
you address any need for change?
    Answer. The Physical Evaluation Board manages the Department of the 
Navy's disability evaluation system. If confirmed, I will review the 
evaluation process to ensure it is fair, efficient and thorough. I have 
not had an opportunity to personally assess this system, but if 
confirmed I will ensure that this program provides the best service 
possible to our deserving sailors and marines.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's support for 
wounded sailors and marines and to monitor their progress in returning 
to duty or civilian life?
    Answer. If confirmed, I will work to ensure sailors, marines, and 
their families are provided with optimum medical care and support 
throughout their recovery, rehabilitation and reintegration. Our 
sailors and marines deserve nothing less.
                       officer management issues
    Question. As the Assistant Secretary of the Navy for Manpower and 
Reserve Affairs you would have significant responsibilities with regard 
to officer management policies, the promotion system, and recommending 
officers for nomination to positions of authority and responsibility.
    If confirmed, what changes, if any, would you make to the officer 
management system?
    Answer. The officer management systems, and in particular the 
promotion system, are constantly being evaluated and improved. I have 
experience with aspects of the officer management system from my 
military service, but I have not been fully briefed on all of the 
specifics of the program, or the results of the latest evaluations. If 
confirmed, I will fully consider and evaluate all recommendations for 
improvement from the Navy and Marine Corps.
    Question. Do you believe the current Navy and Marine Corps 
procedures and practices for reviewing the records of officers pending 
nomination by the President are sufficient to ensure the Secretary of 
the Navy, the Secretary of Defense, and the President can make informed 
decisions?
    Answer. I have not yet been briefed on this issue, but based on my 
experience as a Naval Officer I know the Department strives to ensure 
that the review process for officers pending nomination by the 
President is thorough, expansive, and fair. If confirmed, I am 
committed to ensuring that the officers recommended by selection boards 
are best qualified for promotion to meet the needs of the Navy and 
Marine Corps consistent with the requirements of exemplary conduct.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. While I have not yet been briefed on these procedures and 
practices, my experience gives me the confidence that the Navy and 
Marine Corps procedures and practices for reviewing the records of 
officers pending nomination by the President are fair and reasonable 
for the officers involved.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general and flag officer nominations?
    Answer. If confirmed, I will provide all necessary assistance to 
the Secretary of the Navy to evaluate adverse and alleged adverse 
information pertaining to general and flag officer nominations. Given 
the special trust placed in our senior leaders, it is essential that 
nomination packages provide the Secretary with the best possible 
information regarding the fitness of the officers selected to serve as 
our senior leaders.
    Question. What is your assessment of the ability of the services to 
document credible information of an adverse nature in a timely manner 
for evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. The documentation of credible information of an adverse 
nature is critical to ensuring the reliability of selection board 
results. I consider this to be one of our most important 
responsibilities and one that, if confirmed, I would carefully study to 
ensure information of an adverse nature is properly evaluated.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
and flag officer rank?
    Answer. I have not had an opportunity to be briefed on the existing 
process within the Department of the Navy for developing and 
promulgating selection criteria for general and flag officers. If 
confirmed, I will provide the Secretary my frank assessment of the 
existing processes and will make recommendations of any changes 
necessary to ensure the best qualified officers are nominated.
                 technical training of general officers
    Question. In your view, do a sufficient number of Navy and Marine 
Corps flag and general officers have advanced training and degrees in 
scientific and technical disciplines?
    Answer. I have not been briefed on advanced training standards for 
flag and general officers. If confirmed, I will closely monitor the 
inventory of senior officer personnel to ensure our Navy and Marine 
Corps has officers with necessary technical and scientific training.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the Navy can execute complex acquisition 
programs, adapt to a rapidly changing technological threat environment, 
and make informed investment decisions on DOD, Navy, and Marine Corps 
resources?
    Answer. I have not been fully briefed on the requirements for these 
technical Navy career paths. If confirmed, I will work with officials 
across the DON to ensure that the Navy can provide the acquisition and 
technical expertise required to make informed investment decisions.
    Question. If not, what will you do to address this deficiency, if 
you are confirmed?
    Answer. If confirmed I will evaluate whether there is adequate 
match between acquisition education requirements and senior officer 
training and education.
                       delivery of legal services
    Question. What is your understanding of the respective roles of the 
General Counsel and Judge Advocate General of the Navy in providing the 
Secretary of the Navy with legal advice?
    Answer. I believe that the considered and independent counsel of 
the General Counsel and of the Judge Advocate General of the Navy are 
absolutely necessary to effective governance of the Department. It is 
my understanding that the General Counsel and the Judge Advocate 
General provide the Navy unique perspectives that are complimentary and 
essential. If confirmed, I will work closely with these two 
indispensable counsel to ensure that recommendations to the Secretary 
of the Navy receive the benefit of their independent legal advice.
    Question. What are your views about the responsibility of staff 
judge advocates within the Navy and Marine Corps to provide independent 
legal advice to military commanders in the fleet and throughout the 
naval establishment?
    Answer. Navy and Marine Corps staff judge advocates provide 
critical advice to civilian and military leaders within the Department. 
My prior experience as a naval officer has impressed upon me the value 
for commanders to have experienced, well trained staff judge advocates 
who serve with them, who understand the specific mission and 
requirements of the commander, and who are prepared to provide 
essential, independent advice where and when it is needed.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant to provide independent legal advice to the Chief of Naval 
Operations and the Commandant of the Marine Corps, respectively?
    Answer. It is critically important that the Chief of Naval 
Operations and the Commandant of the Marine Corps receive independent 
advice from well experienced, senior uniformed judge advocates.
                   navy judge advocate general corps
    Question. The Center for Naval Analyses (CNA) recently completed a 
study of manpower requirements for the Navy in which it concluded that 
the Navy's Judge Advocate General Corps was significantly understrength 
for its mission, including combat service support of Marine Corps' 
units and Task Force 134 in Iraq.
    What is your understanding of the CNA study's findings with respect 
to Active Duty manpower in the Navy JAG Corps?
    Answer. I have not had an opportunity to read or be briefed on the 
findings of the CNA study. If confirmed, I commit to reviewing the 
study and working with the Judge Advocate General of the Navy, the 
Chief of Naval Operations, and the Commandant of the Marine Corps to 
ensure that the Secretary is fully informed about the legal manpower 
requirements of Marine combat units and the resourcing of the Navy 
Judge Advocate General's Corps.
    Question. What is your understanding of the sufficiency of the 
number of active-duty judge advocates in the Marine Corps to provide 
legal support for all the Marine Corps' missions?
    Answer. If confirmed, I will work with the Staff Judge Advocate to 
the Commandant, and with the Deputy Commandant for Manpower, to ensure 
that Secretary of the Navy and I are fully informed about the legal 
manpower requirements for Marine Corps missions.
    Question. If confirmed, will you review the judge advocate manning 
within the Navy and Marine Corps and determine whether current active-
duty strengths are adequate?
    Answer. I will.
                        active-duty end strength
    Question. In its 2010 budget submission, the administration and the 
Navy requested a permanent end strength of 324,400 in the base budget, 
and a temporary emergency end strength of 4,400 in the OCO request. 
This additional 4,400 sailors was the only end strength of any service 
funded in the OCO request.
    Is a permanent active-duty end strength of 324,400, in your view, 
sufficient to allow the Navy to accomplish its numerous missions going 
forward?
    Answer. Determining the appropriate active-duty end strength is a 
critically important issue, and one that I am very concerned about. I 
have not, however, had an opportunity to be fully briefed on 
projections for permanent active-duty end strength for the Navy's 
future mission requirements. If confirmed, I intend to work with the 
Chief of Naval Personnel to ensure that we determine the right size of 
the military force.
    Question. Does the Navy consider this 4,400 increase to be surplus 
to its permanent and enduring requirements and temporary in nature, or 
is this manpower the Navy will need for the foreseeable future?
    Answer. It is my understanding that Navy requested the 4,400 
increase to provide support to OCO and not as a permanent increase. If 
confirmed, I commit to continuously review both permanent end strength 
requirements for Navy missions as well as to monitor temporary OCO 
requirements to ensure the Department's budget requests provide the 
administration and Congress a clear understanding of manpower needs.
             navy and marine corps recruiting and retention
    Question. Recruiting and retention of quality sailors and marines, 
officer and enlisted, Active-Duty and Reserve, is vital to the 
Department of the Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. The Navy and Marine Corps enjoy continued success in 
recruiting and retaining exceptionally well-qualified personnel. It is 
my understanding that both the Navy and Marine Corps continue to meet 
all recruiting goals through the efforts of a strong, well-resourced 
recruiter force. Once a sailor or marine joins the Service, success in 
retention requires that we provide world class benefits to Navy 
families that are appropriate to a world class force.
    Question. What initiatives would you take, if confirmed, to further 
improve the attractiveness of Navy and Marine Corps, Active-Duty and 
Reserve service?
    Answer. I have not had an opportunity to be briefed on initiatives 
that are in development, but if confirmed I commit to a vigorous review 
of the entire spectrum of tools available to the Navy and Marine Corps 
to ensure that as the economy improves we will be able to continue to 
recruit and retain the talented people who value service and are 
willing to serve.
               medical personnel recruiting and retention
    Question. The Navy is facing shortages in critically needed medical 
personnel in both the Active and Reserve components. The committee is 
concerned that growing medical support requirements will compound the 
already serious challenges faced in recruitment and retention of 
medical, dental, nurse, and behavioral health personnel.
    If confirmed, will you undertake a comprehensive review of the 
medical support requirements for the Navy and the sufficiency of the 
plans to meet recruiting and retention goals in these specialties?
    Answer. I will. Nothing is more important to our sailors, marines, 
and their families than to ensure that they receive ready access to 
world class medical care.
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Navy can continue to meet medical support requirements?
    Answer. I have not had an opportunity to be briefed on the 
Department's legislative and policy initiatives, but I am committed to 
fully evaluating all such initiatives to ensure that the Navy will be 
positioned to compete for the best medical, dental, nurse and 
behavioral health personnel available.
             report of the dod task force on mental health
    Question. The DOD Task Force on Mental Health found that the stigma 
surrounding post-traumatic stress disorder and other mental health 
issues acts as a barrier to many servicemembers seeking the help that 
they need. Additionally, the Task Force found that there are 
significant issues with accessibility and numbers of mental health 
providers, stating that the ``military system does not have enough 
fiscal or personnel resources to adequately support the psychological 
health of servicemembers and their families.''
    If confirmed, what actions would you take to ensure that 
appropriate numbers of mental health resources are available to sailors 
and marines in theater, and to them and their families upon return to 
home station?
    Answer. If confirmed, I will strongly advocate ensuring adequate 
mental health resources are available in theater as well as upon their 
return from deployment.
    Question. What actions should senior leaders take to erase the 
stigma associated with seeking mental health care?
    Answer. The psychological health of our servicemembers and their 
families is a critical readiness factor. Senior leaders must take the 
lead in creating a new perception that seeking help demonstrates 
courage and thereby reduce any perceived stigma.
                    operational and personnel tempo
    Question. Current DOD policy is that Active component personnel 
will have 2 years of dwell time for each year of deployment and that 
Reserve component members have 5 years of dwell time for each year they 
are mobilized.
    What is your view of the achievability of this goal? What measures 
must be taken by the Navy and Marine Corps to be able to achieve it in 
5 years or less?
    Answer. The Marine Corps' achievement of an end strength of 
202,000, accomplished some 3 years early, will give us the capacity to 
reach this goal. If confirmed, I will make it a priority to continue 
the Department's objective of attaining the 2:1 dwell time.
    Question. In your view, how will shifting resources from Iraq to 
Afghanistan affect dwell-time ratios?
    Answer. I have not been fully briefed on the impact of shifting 
resources from Iraq to Afghanistan. If confirmed, I will review this 
issue.
    Question. What is your assessment of the Navy and Marine Corps' 
ability to support scheduled troop rotation planning in 2009 and 
beyond, particularly in combat support and combat service support 
missions, given this goal?
    Answer. I have not been fully briefed on the impact of these 
scheduled troop rotations. If confirmed, I will review this issue.
    Question. In your view, what will be the effect on recruiting, 
retention, and readiness of the Navy and Marine Corps of the current 
rates of operations and personnel tempo through 2010?
    Answer. It is my understanding that the Navy and Marine Corps enjoy 
continued success in recruiting and retention. If confirmed, I will 
work with the Chief of Naval Operations and the Commandant of the 
Marine Corps to ensure naval service remains attractive to prospective 
recruits and that sailors, marines, and families receive the support 
they need to continue serving while operation and personnel tempos 
remain high. We must prepare for increased competition for the Nation's 
best and brightest, when the Nations' economy improves, by continuing 
our commitment to a ready, resourced recruiting force.
                    mobilization and demobilization
    Question. In the aftermath of the attacks of September 11, 2001, 
the Reserve components have experienced their largest and most 
sustained employment since World War II. Numerous problems arose in the 
planning and procedures for mobilization and demobilization, e.g., 
inadequate health screening and medical readiness monitoring, errors 
due to antiquated pay systems, limited transition assistance programs 
upon demobilization, and lack of access to members of the Individual 
Ready Reserve. Reserve Force management policies and systems have been 
characterized in the past as ``inefficient and rigid'' and readiness 
levels have been adversely affected by equipment stay-behind, cross-
leveling, and reset policies.
    What is your assessment of advances made in improving Navy Reserve 
and Marine Corps Reserve mobilization and demobilization procedures, 
and in what areas do problems still exist?
    Answer. As I understand it, the Navy and Marine Corps have 
continued to modify, and where necessary improve, the activation 
process for Reserve component sailors and marines in order to best 
support these deploying personnel while at the same time meeting the 
combatant commander and gaining commander requirements. These processes 
are evaluated on a continual basis to best meet the needs of sailors 
and marines and the dynamic requirements of gaining commands.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Navy Reserve and Marine Corps 
Reserve aimed at ensuring their readiness for future mobilization 
requirements?
    Answer. As an officer in the Navy Reserve I am aware that prior to 
September 11, 2001, the Navy already had initiatives underway to 
enhance integration between the Active and Reserve components. The 
events of September 11 and OIF and OEF focused greater attention on 
these initiatives resulting in an enhanced, integrated Total Force. In 
my view, recent operations have emphasized the readiness and capability 
of the Reserve component.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the Reserves?
    Answer. I am not aware of any needed modifications to statutory 
authority for mobilization of the Reserves. If additional authorities 
or modifications were required, I would recommend those changes to the 
Secretary of the Navy.
    Question. Do you believe that Reserve personnel should be mobilized 
to serve in lieu of civilians in Afghanistan?
    Answer. It is my understanding that marines and sailors are 
mobilized to meet combatant commander requirements as validated by the 
Joint Staff and the Secretary of Defense. If confirmed I would advocate 
utilization of our Reserve component consistent with those validated 
requirements and our commitment to dwell-time standards.
                        individual ready reserve
    Question. DOD established a policy in 2005 mandating the discharge 
of officers in the Individual Ready Reserve (IRR) who are beyond their 
military service obligations (MSO) unless the officer positively elects 
to remain in the IRR. Meanwhile, the Commission on the National Guard 
and Reserves has found that accessing the IRR as a viable source of 
manpower for the war has been problematic, and that using the IRR as a 
solution for unit manning is a failed concept.
    What are your views on the proper role of the IRR in Navy and 
Marine Corps force management planning?
    Answer. I have not had an opportunity to review the Commission on 
the National Guard and Reserves report to understand the specific 
problems identified. If confirmed I commit to assessing the 
effectiveness of the IRR as it relates to Navy and Marine Corps support 
to combatant commanders.
    Question. If confirmed, what changes, if any, do you foresee 
proposing to the Navy and Marine Corps IRR recall policy?
    Answer. My understanding is that Federal law stipulates that all 
members of the Individual Ready Reserve (IRR) are eligible for 
involuntary recall to active duty. I have not been briefed on the need 
to change any policy or policies currently associated with the IRR.
    Question. What are your views about policies affecting continued 
service by officer and enlisted personnel in the Reserve components who 
have fulfilled their MSO?
    Answer. I believe our military is built on the strength of 
volunteers and I wholly support the continued service of all those that 
are willing, fit and ready to serve consistent with the needs of the 
Services and the requirements of the law.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to active duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing a decision on that request?
    Answer. My understanding is that the Services and DOD have 
established policies and systems in place to allow all reservists, 
including IRR members recalled to Active Duty to apply for delays, 
deferments, or exemptions from mobilization.
    Question. What is your assessment of the value of the IRR to the 
Navy and Marine Corps All-Volunteer Force?
    Answer. The IRR represents a valuable pool of experienced sailors 
and marines for our Nation's defense. If confirmed, I will evaluate the 
mobilization and demobilization processes for the IRR to ensure that 
sailors and marines willing and able to serve are permitted to do so.
medical and dental readiness of navy and marine corps reserve personnel
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. As an officer in the Navy Reserve, I recognize medical and 
dental readiness as essential to our mission. The best trained Reserve 
sailors and marines are unable to perform their missions if they lack 
essential medical and dental readiness. If confirmed, I will use my 
experience and all available resources to evaluate current readiness 
reporting processes to ensure our Nation has the warfighting capability 
that our Reserve sailors and marines are trained to provide.
    Question. How would you improve upon the Navy and Marine Corps' 
ability to produce a healthy and fit Reserve component?
    Answer. If confirmed, I will use my experience as a Navy Reserve 
officer to fully inform my review of the Reserve component with the 
goal of improving the health and fitness of the Reserve component, as 
well as ensuring accurate and timely accounting from our medical 
component.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from OEF and OIF which you would seek to address if confirmed 
as Assistant Secretary of the Navy for Manpower and Reserve Affairs?
    Answer. I am confident that there are valuable personnel lessons 
learned from OEF and OIF. The sacrifices of our sailors and marines, 
and their families in support of these operations were made at great 
cost. If confirmed, I will seek out and review these hardearned lessons 
learned with senior leaders within the Department of the Navy.
              tricare fee increases for military retirees
    Question. Secretary Gates recently told officers at the Air War 
College that ``health care is eating the (Defense) Department alive.''
    How do you interpret this statement and do you agree with the 
Secretary's assessment?
    Answer. I interpret Secretary Gates' comments to be an 
acknowledgement of the huge cost associated with the Departments' 
overall medical care expenses. I understand his concerns. I have had 
the privilege to receive military medical care for most of my life. The 
medical care that is provided is of a very high quality. This care, 
however, comes at a substantial cost to the overall DOD budget.
    Question. What is your view of the need for increased beneficiary 
payments in reducing overall health care costs to the Department?
    Answer. The Department should consider all available options in 
order to confront the rising cost of military health care. Certainly, 
increasing the beneficiary payments would reduce the costs. However, 
this may also have an adverse impact upon those beneficiaries. Health 
care is a significant benefit to our military servicemembers and their 
families, earned with sweat and often blood, and any change must be 
thoroughly analyzed and carefully communicated.
    Question. What other reforms in infrastructure, benefits, or 
benefit management, if any, do you think should be examined in order to 
control the costs of military health care?
    Answer. I will support efforts by DOD to responsibly control the 
costs of military health care.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel, and related 
entitlement spending continue to increase rapidly and are becoming an 
ever increasing portion of the DOD budget.
    If confirmed, what actions will you take to control the rise in 
personnel costs and entitlement spending?
    Answer. Personnel costs represent the largest part of the 
Department's budget. One of the keys to controlling personnel costs is 
to operate as efficiently and effectively as possible with respect to 
utilization of personnel. It is critical that we apportion that part of 
the budget devoted to personnel to benefits that deliver the best value 
to naval personnel while being good stewards of the taxpayer's dollar.
    If confirmed, I will strive to do this while also seeking to find 
new options and approaches to address the rising personnel costs and 
work with Congress, the Secretary of Defense and the Secretary of the 
Navy to address this critical matter.
    Question. If confirmed, what actions will you take to avoid a 
requirement for multimillion dollar end-of-year reprogramming to cover 
personnel costs?
    Answer. If confirmed, I will examine the processes and requirements 
associated with personnel costs to determine what actions may be taken 
to reduce this reliance upon end-of-year reprogramming.
                            family readiness
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    In your view, what are the key indicators of the stress on Navy and 
Marine Corps families at this time?
    Answer. There are a number of tangible indicators of stress on our 
military families reflecting the impact of 7 years of wartime 
operations. These range from financial hardship, marital difficulties, 
psychological problems for children, to the most tragic imaginable, a 
member taking their own life. I intend to do everything possible to 
responsibly address the need for services and the demand for support 
programs by Navy and Marine Corps families.
    Question. If confirmed, what will you do to address these key 
indicators?
    Answer. I have personally experienced the impact of extended 
deployments, both as the deployer and as a dependent. If confirmed, I 
will work to ensure these resources are available to our families 
experiencing the effects of frequent deployments. Additionally, I will 
continue to advocate consistent standardized quality family support and 
child and youth programs.
    Question. What do you consider to be the most important family 
readiness issue for sailors and marines and their families?
    Answer. I consider all family readiness issues to be important, but 
obviously the most dramatic and tragic are mental health issues that 
may result in suicide. If confirmed, I will focus on Navy and Marine 
Corps family readiness programs, and will strive to meet all family 
readiness needs throughout the Navy-Marine Corps team. However, I 
intend to pay particular attention to suicide risks and take every 
reasonable measure to reduce them.
    Question. What challenges do you foresee in sustaining quality of 
life programs, and are there new initiatives that you would undertake, 
if confirmed, to ensure the availability of high quality services, 
including child care, education, and recreational opportunities for 
sailors and marines and their families?
    Answer. While fiscal challenges threaten Navy and Marine Corps 
quality of life programs, sustaining our current accredited programs 
will be a priority. If confirmed, I will work with the Chief of Naval 
Operations and Commandant of the Marine Corps to maintain focus and 
commitment to programs that support the quality of life needs of all 
naval personnel and their families.
    Question. If confirmed, how would you ensure support for Reserve 
component families, particularly those who do not reside near an 
active-duty military installation, related to mobilization, deployment, 
and family readiness?
    Answer. If confirmed, I intend to work with the Secretary of the 
Navy and the other military Services to maintain focus and commitment 
to the quality of life needs of all personnel, regardless of where they 
live.
    Question. In your view, what progress has been made, and what 
actions need to be taken in the Navy and Marine Corps to provide 
increased employment opportunities for military spouses?
    Answer. Military spouse employment is a readiness and quality of 
life issue and a top priority for the Department of the Navy. 
Significant progress has been made through State and Congressional 
support for our military spouses through alternative certifications and 
reciprocal agreements. I will consider a number of options, to include 
assessing whether allowing spouses to use FPO addresses will improve 
their ability to engage in home businesses.
    Question. If confirmed, what additional steps would you take to 
ensure that family readiness needs, including child care, are addressed 
and adequately resourced?
    Answer. We will continue to utilize feedback mechanisms from 
sailors, marines, and their families to address their concerns. If 
confirmed, I will work to ensure that effective and innovative Quality 
of Life programs including Child Development Centers that our sailors, 
marines, and their families rely on, remain resourced and a priority 
for Department of the Navy. Again, as someone who has both utilized 
such Development Centers for my children, and as a military child 
myself, I appreciate the importance of such facilities.
                 support for single sailors and marines
    Question. While the percentage of married sailors and marines has 
steadily increased, a substantial portion of them, especially young 
sailors and marines, are single.
    What are the unique support needs of single sailors and marines, 
especially those returning from combat?
    Answer. My military experience has convinced me that all single 
sailor support needs are not alike. In many ways, their needs differ 
depending upon seniority. Many junior single personnel are away from 
their families for the first time and need life skills to adjust to 
living on their own. More senior single personnel live in the community 
and may be significantly impacted by a deployment since there is no one 
to care for their household. They may not have a support structure to 
monitor their well-being upon their return from combat operations or 
deployment.
    Question. If confirmed, what would you do to address these needs?
    Answer. If confirmed, I would continue to emphasize the 
availability of Fleet and Family Support Centers and the Marine and 
Family Support Centers resources and services to all of our sailors and 
marines. The importance of continuing the efforts put in place to 
engage a single servicemember's preferred point of contact during a 
single sailor's or marine's deployment remains important and cannot be 
over-emphasized.
                   national security personnel system
    Question. Section 1106 of the National Defense Authorization Act 
for Fiscal Year 2008 restored the collective bargaining rights of 
civilian employees included in the National Security Personnel System 
(NSPS) established by DOD pursuant to section 9902 of title 5, U.S.C. 
Under section 1106, the Department retains the authority to establish a 
new performance management system (including pay for performance) and 
streamlined practices for hiring and promotion of civilian employees. 
Senior DOD officials have stated that they do not intend to expand NSPS 
to include employees in bargaining units that are represented by 
employee unions.
    What is your view of the NSPS, as currently constituted?
    Answer. I have had limited opportunity to fully evaluate the NSPS 
system. It is my understanding that the Department is currently 
reviewing the programs, policies and practices of NSPS. It seems 
prudent to allow this review to be completed prior to altering or 
eliminating the system. Regardless, it is critical for the Department 
to have a comprehensive system for employee management which provides 
accountability, flexibility and is mission-driven to incorporate pay 
for employee performance.
    Question. Do you support the pay-for-performance approach adopted 
for civilian employees in the NSPS?
    Answer. Yes. Appropriately compensating our workforce for their 
performance is essential. While I am familiarizing myself with the 
specifics of the NSPS pay-for-performance program, it seems reasonable 
to establish a clear relationship between the organization's mission 
and the work performed.
    Question. Do you believe that the Department needs streamlined 
authority for hiring and promotion of civilian employees to meet its 
human capital needs?
    Answer. Expedited hiring authority is an exceptional tool in the 
recruiting process and in building a strong public workforce. If 
confirmed, I would pursue expedited hiring authority for critical 
positions.
    Question. In your view, is it viable in the long run for DOD to 
maintain two separate systems (NSPS and the General Schedule) for its 
civilian employees?
    Answer. Currently, there are a number of personnel management 
systems operating within our workforce, including NSPS and the GS. If 
confirmed, I will review all of them before making recommendations on 
what is optimal to achieve mission.
    Question. What changes, if any, would you recommend to the NSPS 
authorizing legislation?
    Answer. I have no specific legislative change to propose at this 
time. I believe that it is important to wait for the final report and 
recommendations of the ongoing Department review of NSPS policies, 
regulations and practices.
    Question. What changes, if any, would you recommend to the NSPS 
regulations?
    Answer. I have no specific regulatory changes to propose at this 
time. It is important to wait for, and subsequently evaluate, the final 
report and recommendations of the ongoing Department review, as well as 
any additional legislative changes to determine what new regulations 
would be appropriate.
      balance between civilian employees and contractor employees
    Question. In recent years, DOD and the Department of the Navy have 
become increasingly reliant on services provided by contractors. Over 
the past 8 years, DOD's civilian workforce has remained essentially 
unchanged in size. Over the same period, the DOD's spending on contract 
services has more than doubled, with the estimated number of contractor 
employees working for the Department increasing from an estimated 
730,000 in fiscal year 2000 to an estimated 1,550,000 in fiscal year 
2007. As a result of the explosive growth in service contracts, 
contractors now play an integral role in the performance of functions 
that were once performed exclusively by government employees, including 
the management and oversight of weapons programs, the development of 
policies, the development of public relations strategies, and even the 
collection and analysis of intelligence. In many cases, contractor 
employees work in the same offices, serve on the same projects and task 
forces, and perform many of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Department of 
the Navy (DON)?
    Answer. The DON ``Smart Work'' initiative contracted out certain 
tasks and duties, thereby freeing up permanent personnel. This was an 
understandable and admirable initiative. However, over time it may have 
gone too far. If confirmed, I will revisit this issue and look for 
every opportunity to ``in source'' where it would increase 
efficiencies. I am committed to achieving the optimal mix of military, 
Federal-civilian, and contractor personnel and to be better stewards of 
taxpayer resources.
    Question. In your view, has the DON become too reliant on 
contractors to perform its basic functions?
    Answer. It would be unwise to assume that contracting out all 
critical readiness capabilities is the most prudent route to steward 
scarce resources. If confirmed, I am committed to reviewing the current 
balance and establishing the process necessary to analyze the costs and 
benefits of contracting.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interests of the DON?
    Answer. Similar to my concerns regarding contractors, it is unwise 
to assume that the use of personal service contracts is always the best 
route to addressing our needs in light of limited resources. If 
confirmed, I am committed to reviewing the current balance and 
establishing the processes necessary to analyze the costs and benefits 
of these types of contracts.
    Question. Do you believe that the DON should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. It is always in our best interest to carefully review the 
direct, indirect and potentially unintended consequences of a decision 
to contract out functions that may be considered inherently 
governmental. If confirmed, I am committed to establishing the 
processes necessary to perform this analysis.
    Question. If confirmed, will you work with other appropriate 
officials in the DON to address these issues?
    Answer. Yes.
    Question. One reason for the explosive growth in DOD's contractor 
workforce has been the continuing limitation placed on the number of 
civilian employees of DOD. Rather than saving money as intended, this 
limitation has shifted all growth to contractor employees. Would you 
agree that the balance between civilian employees and contractor 
employees in performing DON functions should be determined by the best 
interests of the DON and not by artificial constraints on the number of 
civilian employees?
    Answer. Yes.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the DON's civilian workforce, so that 
the number of employees most appropriate to accomplish its mission can 
be hired?
    Answer. Yes.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving 
servicemembers at home station and in Iraq, Kuwait, and Afghanistan 
have been reported over the last several years. Many victims and their 
advocates contend that they were victimized twice: first by attackers 
in their own ranks and then by unresponsive or inadequate military 
treatment. They asserted that the military failed to respond 
appropriately by providing basic services, including medical attention 
and criminal investigation of their charges.
    What is your evaluation of the progress to date by the Navy and the 
Marine Corps to prevent additional sexual assaults at home station as 
well as deployed locations?
    Answer. If confirmed, I will be guided by the fact that American 
families have entrusted us to care for their sons and daughters. I will 
not allow these young patriots to be victimized by their own. The Navy 
and Marine Corps have undertaken several important measures to 
strengthen the prevention and response to sexual assaults. Although I 
have not had an opportunity to fully review these programs, as a Navy 
Commander, I know these programs are critically important. If 
confirmed, I will have no greater priority or responsibility.
    Question. What is your view of the adequacy of the training and 
resources the Navy and Marine Corps have in place to investigate and 
respond to allegations of sexual assault?
    Answer. If confirmed, I will evaluate the current training and 
resources to ensure Department of the Navy investigative organizations 
have the ability to respond swiftly and appropriately to address all 
allegations of sexual assault.
    Question. What is your understanding of the resources and programs 
the Navy and Marine Corps have in place in deployed locations to offer 
victims of sexual assaults the medical, psychological, and legal help 
that they need?
    Answer. As a deploying force, Navy and Marine Corps units offer 
victim protection and support with victim advocates on board as well as 
additional assistance through `reach back' capability. Services 
maintain close coordination to ensure support in joint units. NCIS also 
deploys to the combat areas special agents who are trained in 
investigating sexual assaults.
    Question. Do you consider the Department of the Navy's current 
sexual assault policies and procedures, particularly those on 
confidential reporting, to be effective?
    Answer. Confidentiality and restricted reporting of sexual assaults 
are critical. If confirmed, I commit to ensuring effective policies are 
implemented and enforced.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. It is imperative to strike the right balance between the 
legitimate interests of the victim of sexual assault who makes a 
confidential report, the Navy Commander who is responsible for the 
welfare of the victim, and the interests of the military justice system 
which seeks resolution. In my view, Navy leaders must continue to 
reconcile these competing interests.
    Question. If confirmed, what actions would you take to ensure that 
senior civilian leaders of the Department of the Navy have ongoing 
visibility into incidents of sexual assault and the effectiveness of 
policies aimed at preventing and responding appropriately to such 
incidents?
    Answer. If confirmed, I will evaluate the current reporting and 
response systems to determine if any modifications would improve the 
visibility for senior leadership.
               preventing sexual harassment and violence
    Question. The Defense Task Force on Sexual Harassment and Violence 
at the Military Service Academies reported that ``Historically, sexual 
harassment and sexual assault have been inadequately addressed at the 
Service Academies. Harassment is the more prevalent and corrosive 
problem, creating an environment in which sexual assault is more likely 
to occur. Although progress has been made, hostile attitudes and 
inappropriate actions toward women, and the toleration of these by some 
cadets and midshipmen, continue to hinder the establishment of a safe 
and professional environment in which to prepare military officers. 
Much of the solution to preventing this behavior rests with cadets and 
midshipmen themselves.''
    What is your assessment of the policies and procedures at the U.S. 
Naval Academy to prevent and respond appropriately to sexual assaults 
and sexual harassment and to ensure essential oversight?
    Answer. As a critical source for future Naval Officers, it is 
essential to ensure that midshipmen are trained in a culture that 
fosters respect and rejects sexual harassment and assault. If 
confirmed, I will work with the Superintendent of the Naval Academy to 
ensure the strongest, most response-oriented programs are in place.
    Question. If confirmed, what actions would you take to encourage 
not only midshipmen but also all sailors and marines to step up to 
their responsibility to create a culture where sexual harassment and 
sexual assault are not tolerated?
    Answer. Both the Navy and the Marine Corps continue to stress their 
unequivocal position that sexual assault is completely at odds with 
their core values--and that all sailors and marines are honor bound to 
step up, step in, and take personal responsibility for preventing 
sexual assault and holding offenders accountable.
    Question. If confirmed, what other actions would you take to 
address the problem of sexual harassment and sexual assault in the Navy 
and Marine Corps?
    Answer. If confirmed, I will ensure that every individual and 
organization under my office has access to the training and tools 
essential to promote a culture consistent with Navy and Marine Corps 
values.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Navy regarding religious 
practices in the military?
    Answer. It is my understanding that DOD and the Department of the 
Navy have placed a high value on the rights of members of the military 
Services to worship according to the dictates of their individual 
beliefs. From my experience at sea, I know the lengths our Service goes 
to accommodate all faiths. These policies have been created in order to 
comply with the First Amendment to the Constitution and Federal law.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular forms of 
dress or other articles of religious significance?
    Answer. Yes. DOD policy requires that the accommodation of 
religious practices be approved by commanders who strike the 
appropriate balance between accommodation and ensuring there is no 
adverse impact on mission accomplishment, military readiness, unit 
cohesion, standards or discipline.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. Yes.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Yes. Tolerance, inclusiveness, and mutual respect guide 
Navy policy and practice in order to balance the rights of chaplains 
and those of many diverse faiths or non-faiths who attend formal and 
informal functions.
    Question. What is your assessment of the policies and procedures at 
the U.S. Naval Academy to ensure religious tolerance and respect?
    Answer. I have not had an opportunity to focus specifically on the 
policies and procedures at the Naval Academy in this regard. I would 
expect that the policies and procedures of the Naval Academy would 
align with the First Amendment to the Constitution, Federal law, and 
the policies of DOD.
                           suicide prevention
    Question. The committee is concerned about the increasing rate of 
suicides in the Navy.
    In your view, what is the cause of this increase in suicides?
    Answer. Factors commonly associated with Navy and Marine suicides 
include multiple life stressors such as problems in relationships or 
work, administrative or legal actions and physical health concerns. 
Additionally, mental health problems, alcohol and substance abuse 
increase suicide risk. Preventing suicides requires preventing life 
problems, when possible, or resolving them before the problems escalate 
into suicidal thinking.
    Question. What is your assessment of the Navy's response to this 
increase in suicides?
    Answer. While I have not been fully briefed on the Navy's response 
to the increase, I am aware that the Navy has taken a proactive 
approach to suicide prevention with primary focus on building 
resilience through the Navy's Operational Stress Control Program, now 
in its early phases. If confirmed, I intend to leverage all tools 
available to improve the quality and access to such programs, to reduce 
the stigma associated with seeking mental health treatment, and to 
consider new programs to help families and units deal with the trauma 
of these devastating acts. There is much to be done and efforts will 
require continued support.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
DOD on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel. More recently, Congress 
authorized incentive pay for members of precommissioning programs to 
study critical foreign languages.
    In your view, what should be the priorities of the Federal 
Government to expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. Foreign language proficiency is an invaluable skill for the 
Department of the Navy. This is especially true in many of our mission 
critical occupations. If confirmed, I will make it a priority to 
identify the foreign language training available for the workforce and 
to establish a baseline from which to begin a review of potential 
training gaps. In this effort, it only makes sense to attempt to 
harness the expertise attained by other Federal agencies through a 
coordinated approach.
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. I am not currently familiar with the Department's programs 
to attain foreign language proficiencies. If confirmed, my first step 
would be to review determinations of any assessments of foreign 
language requirements. I will need to see how they relate to language 
proficiency and cultural awareness in the force. Next, I will review 
our current capabilities in light of these requirements and analyze 
potential options to ensure that the capabilities meet the 
requirements.
    Question. What is your assessment of an appropriate time frame 
within which results can be realized in this critical area?
    Answer. Based upon my limited knowledge of the Department's 
programs in this regard, I am unable to provide a timeline at this 
time. If confirmed, however, I will work closely with members of the 
Committee to achieve results in the greatest possible time.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the legislative fellows program. 
Upon completion of their legislative fellowships, officers are required 
to be assigned to follow-on positions in their Services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the value of the legislative fellows 
program to the Navy and the DON's compliance with utilization and 
assignment policies for officers who have served as legislative 
fellows?
    Answer. My experience as a Naval Reserve officer and as a former 
White House Fellow convinces me that officers selected for fellowships 
receive invaluable insights from their assignments. I also believe that 
the military benefits greatly when those officers return to serve in 
post-fellowship utilization tours. The needs of the Navy and officer's 
professional development as well as career progression are both well 
served when these officers are able to take their experience as fellows 
to follow on assignments.
           defense integrated military human resources system
    Question. Defense Integrated Military Human Resources System 
(DIMHRS) is a single integrated human resources pay and personnel 
system for all the armed services and the Defense Finance and 
Accounting System (DFAS), and is intended to replace many of the 
systems currently used to perform personnel management and pay 
functions. DIMHRS, which has been under development for several years, 
has come under criticism for cost growth, delays in implementation, and 
failure to meet the expectations of each Service.
    What is your assessment of the need for an integrated, cross-
service personnel and pay system?
    Answer. I have not been fully briefed on the DIMHRS program or its 
impact on the Navy and Marine Corps. If confirmed, I will make it a 
priority to understand the potential options available under this 
system and the impact to personnel management and pay.
    Question. What are your views of the need for completion of 
implementation of DIMHRS and what specific benefits, if any, would the 
Department of the Navy derive from this system?
    Answer. The Department needs a comprehensive human resources system 
to enable rapid, accurate and accessible personnel information that 
will support the full range of our Navy and Marine Corps operational 
environments.
    Question. What is your understanding of the Navy and Marine Corps 
positions with respect to the utility of DIMHRS and its suitability for 
sailors and marines?
    Answer. I have not been briefed on the Department's position.
    Question. Do the Navy and Marine Corps intend to implement DIMHRS 
when it is operationally ready?
    Answer. I have not been sufficiently briefed on the Department's 
current plans regarding the implementation of DIMHRS.
    Question. If confirmed, what changes, if any, would you recommend 
to the implementation schedule and process currently in place?
    Answer. I have not been briefed upon the implementation schedule 
and am not in a position to make such a recommendation.
                            gi bill benefits
    Question. Last year, Congress passed the Post-September 11 Veterans 
Educational Assistance Act that created enhanced educational benefits 
for servicemembers who have served at least 90 days on Active Duty 
since September 11. The maximum benefit would roughly cover the cost of 
a college education at any public university in the country.
    What is your assessment of the effect of the act on recruiting and 
retention of sailors and marines and on nuclear-trained personnel in 
particular?
    Answer. The implementation of this program is very recent, and 
initial benefits will not begin distribution until next week. 
Consequently, there is not enough data at this time to provide an 
accurate assessment of the act's effect on recruiting and retention. 
Anecdotally, I sense enormous enthusiasm from sailors and marines about 
the program, particularly the transferability component.
    Question. What is your understanding of the sufficiency of the 
implementation plan in the DON for the transferability provisions 
contained in the act?
    Answer. It is my understanding that the Department of Navy has 
successfully implemented the transferability provisions contained in 
the act. As part of my oversight role, if confirmed, I will monitor 
this on a regular basis.
              quadrennial review of military compensation
    Question. The Department has completed the 10th Quadrennial Review 
of Military Compensation (QRMC), releasing Volume I of its report in 
February 2008 and Volume II in July 2008. Among other recommendations, 
the QRMC proposes a new defined benefit retirement plan that more 
resembles the benefits available under the Federal Employees Retirement 
System than the current military retirement benefit; increasing TRICARE 
fees for retirees; and the adoption of dependent care and flexible 
spending accounts for servicemembers.
    What is your assessment of the QRMC recommendations, particularly 
the proposed new defined retirement plan?
    Answer. I have not had an opportunity to review the QRMC. I 
recognize the need to evaluate the merits of a defined benefit 
retirement plan and related programs for our military retirees and 
their families. If confirmed, I will thoroughly review the QRMC to 
better understand their recommendations.
    Question. Do you believe the Department of the Navy should offer 
dependent care and flexible spending accounts to sailors and marines?
    Answer. I recognize the importance of providing a mechanism for 
families to build savings for dependent care. The adoption of dependent 
care and flexible spending accounts should be evaluated as options in a 
comprehensive review of potential programs to further assist families 
as well as to build additional incentives for the recruitment and 
retention of our military personnel.
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Navy 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. My vision would be to establish a program to develop a 
senior civilian workforce with a broad background of skills and 
experiences, prepared to support the warfighter and respond to changing 
management requirements of the Department.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
                       flexible spending accounts
    1. Senator Levin. Mr. Garcia, in your answers to the advance policy 
questions, you state that ``dependent care and flexible spending 
accounts should be evaluated as options . . . to further assist 
families as well as to build additional incentives for the recruitment 
and retention of our military personnel.'' The Federal Government and 
most private employers offer these arrangements, which allow employees 
to pay eligible medical and dependent care expenses on a pre-tax basis. 
The committee has previously stated its belief that servicemembers 
should have access to these tools. The Department, in its 2007 report 
on the matter, stated that no known statutory barriers precluded 
offering flexible spending arrangements to servicemembers, but for some 
reason, it has not pursued this benefit. In your view, should the 
Military Services offer these benefits to servicemembers?
    Mr. Garcia. I believe that the Military Services should consider 
offering the use of flexible spending accounts as a benefit to military 
personnel and their families. I am not yet advised as to the 
prospective pros and cons associated with this type of benefit, but it 
certainly warrants evaluation. If confirmed, I will review this option 
and, if beneficial to sailors and their families, find the means to 
implement it.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                         diversity in the navy
    2. Senator Akaka. Mr. Garcia, in a recent interview, Admiral 
Roughead stated ``if you look at the Navy in its entirety, it's a 
representative mix of America's society. But if you look at the 
leadership, it tends to be very white male.'' The Admiral went on to 
say that it is from diversity that you get different experiences, 
ideas, and perspectives producing a richness of solutions that you 
otherwise would not have. What are your thoughts on the diversity 
within the upper leadership ranks of the Navy, and if confirmed, what 
would you like to accomplish in this area?
    Mr. Garcia. I agree with Admiral Roughead, and appreciate his 
leadership in pursuing diversity throughout the Navy, while 
articulating the need to improve diversity in the upper leadership 
ranks. To achieve this, the Navy must focus on recruiting, 
commissioning, mentoring, and retaining highly skilled and qualified 
junior officers from diverse backgrounds who will lead the Navy in the 
decades to come.
    The Navy has identified a long-term goal of a diverse Flag Corps by 
year 2037. It is also my understanding that since January 2008, the 
Navy has made exceptional progress in implementing the necessary 
measures to do so. The Navy recently established dedicated ``City 
Outreach Officers'' in New York, Chicago, Los Angeles, Houston, and 
Atlanta, to engage within their respective communities where it is 
believed significant opportunities exist to reach diverse candidates. 
The newly admitted Naval Academy class of 2013 is the most diverse 
class in its history with 35 percent of its midshipmen being from 
minority backgrounds, and 20 percent of the class being female. 
Additionally, over 30 percent of incoming freshman in Naval ROTC are of 
minority backgrounds. These initial steps and trends are encouraging 
for the Navy's long-term diversity goals.
    I know that the Navy continues to actively support its internal 
minority affinity groups, including the National Naval Officers 
Association, the Association of Naval Service Officers, and the Sea 
Services Leadership Association, to provide greater visibility to the 
waterfront on diversity initiatives, venues for mentoring, and 
camaraderie among peers and across paygrades. Navy leadership is in the 
forefront of this effort with CNO and other senior Navy leaders 
attending and leading conferences and events for these affinity groups.
    Finally, as the Navy builds a strong cohort of diverse leaders for 
2037 and beyond, it must compete to retain these leaders who will be 
eagerly sought in the private sector.
    I am encouraged by the recent efforts taken by the Navy. If 
confirmed, I am committed to build on this foundation of success. I 
hope to have the opportunity to work with the Secretary of the Navy and 
with Congress to identify any areas that require new or enhanced 
authorities that could be helpful in enabling the Navy to achieve its 
goal to establish a more diverse leadership.
                                 ______
                                 
    [The nomination reference of Juan M. Garcia III follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 18, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Juan M. Garcia III, of Texas, to be an Assistant Secretary of the 
Navy, vice William A. Navas, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Juan M. Garcia III, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Juan M. Garcia III
    Juan M. Garcia III is an attorney, a former Texas State 
Representative, and a second-generation naval aviator. Mr. Garcia, 
whose family hails from South Texas, was born May 27, 1966. He 
graduated from the University of California, Los Angeles (UCLA) in 
1988, and gave the student commencement speech. Mr. Garcia earned a 
J.D. from Harvard Law School and an M.A. from Harvard's John F. Kennedy 
School of Government in 1992. After graduation, Mr. Garcia followed in 
his father's footsteps by joining the Navy, and upon completion of 
Aviation Officer Candidate School and flight training, Mr. Garcia 
earned his ``Wings of Gold'' at Naval Air Station (NAS), Corpus 
Christi, TX.
    Mr. Garcia served in Patrol Squadron 47 out of NAS Barber's Point, 
HI, and completed deployments to the Persian Gulf and Western Pacific. 
Mr. Garcia also served overseas as flag aide to the Deputy Commander, 
U.S. Naval Forces Europe in London, England, deploying as part of 
Operation Allied Force during hostilities in Kosovo. From 1999 to 2000, 
Mr. Garcia was one of 16 Americans selected to serve as a White House 
Fellow, serving as a Special Assistant to the Secretary of Education, 
the Hon. Richard Riley. Mr. Garcia then reported for sea duty aboard 
the aircraft carrier USS Constellation, serving as the Officer of the 
Deck. In 2002, Mr. Garcia returned to the air as a flight instructor 
with Training Squadron 27 at NAS Corpus Christi.
    Commander Garcia left Active Duty in 2004, but continues to fly in 
the Naval Reserve. Mr. Garcia currently serves as the Commanding 
Officer of Reserve Training Squadron 28 at NAS Corpus Christi.
    Mr. Garcia joined the Corpus Christi law firm of Hartline, Dacus, 
Barger, Dreyer, and Kern as an associate attorney in 2004. In 2006, he 
was elected to the Texas House of Representatives, and represented the 
32nd District from 2007-2009. While in the State house, Mr. Garcia 
focused on transparency in government and veterans issues.
    Mr. Garcia is married to the former Denise Giraldez, a Harvard Law 
School classmate. The Garcia's have four young children--twin sons, 
Jack and Luke (11); daughter, Calista Rose (8); and youngest son, Lex 
(6).
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Juan M. Garcia 
III in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Juan Manuel Garcia III.

    2. Position to which nominated:
    Assistant Secretary of the Navy, Manpower and Reserve Affairs.

    3. Date of nomination:
    June 18, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 27, 1966; St. Louis, MO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former Denise Giraldez.

    7. Names and ages of children:
    Jackson Emiliano Garcia, 11; Lucas Cesar Garcia, 11; Calista Rose 
Garcia, 8; and Alexander Hector Garcia, 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard Law School, 1989-1992, Juris Doctor (June 1992).
    John F. Kennedy School of Government, Harvard University, 1988-
1992, Masters in Public Policy (June 1992).
    University of California, Los Angeles, 1986-1988, Bachelors of Arts 
(June 1988) California State University, Fullerton, 1984-1986.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Attorney; Hartline, Dacus, Barger, Dreyer & Kern, LLP Corpus 
Christi, TX; May 2005-Present.
    Naval Aviator; U.S. Naval Reserve, NRVT-28, Naval Air Station 
Corpus Christi, TX; November 2004-Present.
    Texas State Representative, Texas House of Representatives, House 
District 32; January 2007-January 2009.
    Naval Aviator; U.S. Navy, VT-27, Naval Air Station Corpus Christi, 
TX; October 2002-October 2004.
    Naval Aviator; U.S. Navy, USS Constellation, Naval Air Station 
North Island, CA; October 2000-October 2002.
    Naval Aviator; U.S. Navy, White House Fellow, Washington DC; 
September 1999-September 2000.
    Naval Aviator; U.S. Navy, U.S. Naval Headquarters, London; 
September 1998-August 1999.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Navy, 1994-1998.
    Naval Aviator, U.S. Navy, Naval Air Station Barber's Point, HI; 
September 1995-September 1998.
    Naval Aviator, U.S. Navy, Naval Air Station Jacksonville, FL; 
February 1995-September 1995.
    Student Naval Aviator, U.S. Navy, Naval Air Station Corpus Christi, 
TX; November 1992-February 1995.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Associate Attorney; Hartline, Dacus, Barger, Dreyer & Kern, LLP; 
800 N. Shoreline Blvd, Suite 2000, North Tower; Corpus Christi, TX.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, White House Fellows Foundation
    Board of Directors, Texas Lyceum
    Member, Corpus Christi Bar Association
    Member, Texas Bar Association
    Member, Federal Bar, Southern District, Texas
    Member, PTA, Luther Jones Elementary School, Corpus Christi, TX.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Texas House of Representatives-District 32, 2007-2009.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Texas House of Representatives-District 32, 2007-2009
    Selected as a National Delegate, 2008 Democratic Convention.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Barack Obama for President, $2,300; 2008.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    White House Fellowship, 1999-2000
    Military Awards:

         Navy and Marine Corps Commendation Medal (twice)
         Joint Service Commendation Medal (twice)
         Navy and Marine Corps Achievement Medal

    Navy League, Honolulu Chapter, Junior Officer of the Year, 1998
    Victor Astor Memorial Leadership Award, U.S. Naval Institute 2001
    National Hispanic Scholarship Foundation Award
    Knights of Columbus Scholarship
    Dozens of recognition awards from local civic groups in connection 
to my work as a Texas State representative.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Our Hispanic Power and Predicament'' Op-Ed, Corpus Christi 
Caller-Times, September 23, 1999
    ``Immigrant Showed Amazing Courage Under Fire'' Op-Ed, Corpus 
Christi Caller-Times, February 14, 2000 ``Africa, A Tragic Continent'' 
Op-Ed, Corpus Christi Caller-Times, June 15, 2000
    ``What Did George, Al, Dick, and Joe Do in the War'' Op-Ed, Corpus 
Christi Caller-Times, August 13, 2000
    ``McCain's Close Call Began in Corpus Christi'' Op-Ed, Corpus 
Christi Caller-Times, September 3, 2000
    ``Let's Rethink our Iraqi Containment Policy'' Op-Ed, Corpus 
Christi Caller-Times, March 19, 2001
    ``It's Time to Rethink our Role in NATO'' Op-Ed, Corpus Christi 
Caller-Times, December 3, 2002
    ``Keep the Military Neutral,'' Proceedings Magazine, June 2002
    ``Dubious `Friends' '' Op-Ed, Corpus Christi Caller-Times, August 
20, 2002
    ``Opting Out'' Op-Ed, Corpus Christi Caller-Times, November 5, 2002
    ``Brave Man Smeared in Georgia Race'' Op-Ed, Corpus Christi Caller-
Times, November 11, 2002
    ``Carrier's Crew Spend Christmas at Sea'' Op-Ed, Corpus Christi 
Caller-Times, December 24, 2002
    ``Viva Cesar Chavez'' Op-Ed, Corpus Christi Caller-Times, March 27, 
2003
    ``It's Time to Consider Metro Government'' Op-Ed, Corpus Christi 
Caller-Times, May 9, 2004
    ``50 Million for Inaugural Would Buy a Lot of Armor Op-Ed, Corpus 
Christi Caller-Times, December 22, 2004
    Texas House Should Record Critical Votes'' Op-Ed, Corpus Christi 
Caller-Times, November 17, 2006
    ``VA Hospital Long Overdue for South Texas'' Op-Ed, Corpus Christi 
Caller-Times, February 25, 2007

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Comments for BRAC Summit, Naval Station Ingleside, October 9, 2008.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Juan M. Garcia III.
    This 22nd day of July, 2009.

    [The nomination of Juan M. Garcia III was reported to the 
Senate by Chairman Levin on August 4, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 16, 2009.]


 
  NOMINATION OF ADM MICHAEL G. MULLEN, USN, FOR REAPPOINTMENT TO THE 
GRADE OF ADMIRAL AND REAPPOINTMENT AS THE CHAIRMAN OF THE JOINT CHIEFS 
                                OF STAFF

                              ----------                              


                      TUESDAY, SEPTEMBER 15, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Webb, McCaskill, Udall, 
Hagan, Begich, McCain, Sessions, Chambliss, Graham, Thune, and 
Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Howard H. Hoege III, 
counsel; Jessica L. Kingston, research assistant; Gerald K. 
Leeling, counsel; Peter K. Levine, general counsel; William 
G.P. Monahan, counsel; Russell L. Shaffer, counsel; and William 
K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Michael V. Kostiw, professional staff member; Daniel A. Lerner, 
professional staff member; David M. Morriss, minority counsel; 
Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Kevin A. Cronin, Jennifer R. 
Knowles, and Christine G. Lang.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn A. Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Christopher Caple and 
Madeline Otto, assistants to Senator Bill Nelson; Ann Premer, 
assistant to Senator Ben Nelson; Nathan Buniva and Patrick 
Haynes, assistants to Senator Bayh; Gordon I. Peterson, 
assistant to Senator Webb; Tressa Steffen Guenov and Elizabeth 
McDermott, assistants to Senator McCaskill; Jennifer Barrett, 
assistant to Senator Udall; Roger Pena, assistant to Senator 
Hagan; Brandon Andrews, assistant to Senator Inhofe; Lenwood 
Landrum and Sandra Luff, assistants to Senator Sessions; Clyde 
Taylor IV, assistant to Senator Chambliss; Adam G. Brake, 
assistant to Senator Graham; Jason Van Beek, assistant to 
Senator Thune; Erskine W. Wells III, assistant to Senator 
Wicker; and Rob Epplin and Chip Kennett, assistants to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Welcome, everybody. Today the committee 
meets to consider the nomination of Admiral Michael Mullen to a 
second term as Chairman of the Joint Chiefs of Staff. The team 
of Secretary Robert Gates and Admiral Mullen has proved and 
provided excellent leadership and great continuity of 
leadership across two administrations. Admiral, it is a strong 
vote of confidence in you that President Obama has put your 
name forward for a second term. The committee appreciates the 
service that you have provided and your willingness to continue 
to serve and to lead.
    We also thank your wife Deborah and your family for their 
support to you and their sacrifices along the way. We know how 
vital that support is to someone with the responsibilities that 
you shoulder. On behalf of the committee, please pass along our 
appreciation to the great soldiers, sailors, airmen, and 
marines under your command throughout the world and to their 
families for their dedication and sacrifice.
    As he enters into a second term, Admiral Mullen will focus 
on an array of challenges. Foremost among these is the 
situation in Afghanistan and Pakistan. While the security 
situation in Afghanistan is difficult, we still have important 
advantages there. The Taliban are detested by Afghans, who have 
experienced life under their brutal regime. The Afghan people 
know the bleak and hopeless future that the Taliban seeks to 
impose.
    Another strong building block for a successful outcome in 
Afghanistan is that the Afghan military is a motivated force of 
proven fighters and is highly respected by the Afghan people. 
If we take the right steps, we can help ensure that Afghanistan 
does not revert to a Taliban-dominated government that once 
again provides a safe haven for al Qaeda to terrorize us and 
the world.
    The Obama administration's new strategy, announced in 
March, refocusing on securing the Afghan people and partnering 
with the Afghan security forces, is an important step in 
reversing the spread of insecurity. The change in strategy has 
led our forces, in the words of General Stanley McChrystal, to 
``live, eat, and train together with the Afghan security 
forces, plan and operate together, depend on one another, and 
hold each other accountable and treat them as equal partners in 
success.''
    General McChrystal's guidance to the troops goes on to say 
that the success of the Afghan security forces is ``our goal.'' 
To achieve that goal, I believe we should take several vitally 
important overdue steps. First, we need a surge in the numbers 
and strength of the Afghan security forces. We need to expand 
the Afghan National Army and Afghan National Police well beyond 
the current target of 134,000 soldiers and 96,000 police 
personnel by 2010. Most of the members of this committee urged, 
4 months ago in a letter, the establishment of a goal of 
250,000 Afghan troops and 160,000 Afghan police by 2013. 
Hopefully, that goal will be adopted and the target set for the 
end of 2012.
    Our own military in Afghanistan has repeatedly pointed to 
the need for more Afghan forces. As Colonel Bill Hicks, former 
commander of the Afghan Regional Security Integration Command, 
put it: ``The U.S. force is growing down here, but the Afghan 
force is not growing nearly as fast. We have people who are 
bleeding and dying and we need to look hard at how we generate 
Afghan forces.'' A Marine company commander in Helmand, Captain 
Brian Houseman, put it this way: ``The lack of Afghan forces is 
absolutely our Achilles heel.''
    In the sector of Helmand Province that Senator Reed, 
Senator Kaufman, and I visited earlier this month, our marines 
outnumbered Afghan soldiers by five to one.
    We've been assured by Afghan Defense Minister Abdul Rahim 
Wardak that there's no shortage of volunteers to reach this 
goal. We will need significantly more trainers to achieve this. 
We asked General Richard Formica, who is in charge of the 
American effort to train the Afghan security forces, to assess 
what would be required, including the North Atlantic Treaty 
Organization (NATO) and U.S. trainers, to meet that timetable. 
In the meantime, we should also press our NATO allies much 
harder to provide more trainers.
    A larger Afghan military will require more equipment. There 
needs to be a major, urgent effort to determine these 
requirements and to transfer equipment coming out of Iraq to 
Afghan security forces to meet their requirements. A plan for 
that needs to be developed immediately.
    We also need to plan for separating local Taliban fighters 
from their leaders. In Iraq, large numbers of young Iraqis who 
had been attacking us switched sides and became the Sons of 
Iraq. A similar prospect exists in Afghanistan. Afghan leaders 
and our own military leaders say that local fighters, most of 
whom are motivated not by ideology or religious zeal, can be 
brought over to the government's side if offered the right 
incentives. General McChrystal has said: ``There is significant 
potential to go after what I call mid- and low-level Taliban 
fighters and leaders and offer them reintegration into 
Afghanistan.''
    We can draw on the lessons from the Sons of Iraq in working 
with Afghan leaders to adopt and implement a plan without delay 
for turning some enemies into allies in Afghanistan. Such a 
plan requires assurances of protection and non-retribution, as 
well as prospects for jobs, including in the Afghan army and 
police. The potential positive impact of such a concerted 
effort should be taken into account in considering the need for 
additional U.S. combat forces.
    The Afghan people want to provide for their own security. 
In a tiny village in Helmand Province, the three of us met with 
the elders at their village council, or their shura. One 
hundred or so men sat on the floor and talked with us about 
their future and their country's future. When asked how long 
the United States should stay, they said: ``Until the minute 
you make our security forces self-sufficient. Then you will be 
welcome to visit us, not as soldiers, but as guests.''
    Providing the resources needed for the Afghan army and 
Afghan police to become self-sufficient would demonstrate our 
commitment to the success of a mission that is in our national 
security interest, while avoiding the risks associated with a 
larger U.S. footprint. I believe these steps should be urgently 
implemented before we consider a further increase in U.S. 
ground combat troops beyond what is already planned to be 
deployed by the end of the year.
    I'm going to place the balance of my statement in the 
record and call on Senator McCain.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Welcome. Today the committee meets to consider the nomination of 
Admiral Michael Mullen for a second term as Chairman of the Joint 
Chiefs of Staff. The team of Secretary Gates and Admiral Mullen has 
provided excellent leadership and great continuity of leadership across 
two administrations. Admiral, it is a strong vote of confidence in you 
that President Obama has put your name forward for a second term. The 
committee appreciates the service you have provided and your 
willingness to continue to serve and lead. We also thank your wife, 
Deborah, and your family for their support to you and their sacrifices 
along the way. We know how vital that support is to someone with the 
responsibilities that you shoulder.
    On behalf of the committee, please pass along our appreciation to 
our great soldiers, sailors, airmen, and marines under your command 
throughout the world, and to their families, for their dedication and 
sacrifice.
    As he enters a second term, Admiral Mullen will focus on an array 
of challenges. Foremost among these is the situation in Afghanistan and 
Pakistan.
    The security situation in Afghanistan is serious, and the fight 
with al Qaeda and the Taliban has reached a crucial stage.
    While the security situation there is difficult, we still have 
important advantages in Afghanistan. The Taliban are detested by 
Afghans who have experienced life under their brutal regime. The Afghan 
people know the bleak and hopeless future that the Taliban seeks to 
impose. Another strong building block for a successful outcome in 
Afghanistan is that the Afghan military is a motivated force of proven 
fighters and is highly respected by the Afghan people. If we take the 
right steps, we can help ensure that Afghanistan does not revert to a 
Taliban-dominated government that once again provides a safe haven for 
al Qaeda to terrorize us and the world.
    The Obama administration's new strategy announced in March, 
refocusing on securing the Afghan people and partnering with the Afghan 
security forces, is a very important step in reversing the spread of 
insecurity. The change in strategy has led our forces, in the words of 
General McChrystal, to ``live, eat, and train together [with the Afghan 
security forces], plan and operate together, depend on one another, and 
hold each other accountable . . . and treat them as equal partners in 
success.'' His guidance to the troops goes on to say that the success 
of the Afghan security forces ``is our goal.''
    To achieve that goal, I believe we should take several vitally 
important, overdue steps.
    First, we need a surge in the numbers and strength of the Afghan 
security forces. We need to expand the Afghan National Army and the 
Afghan National Police well beyond the current target of 134,000 
soldiers and 96,000 police personnel by 2010. Most of the members of 
this committee urged 4 months ago the establishments of a goal of 
250,000 Afghan troops and 160,000 Afghan police by 2013. Hopefully that 
goal will finally be adopted and the target set for the end of 2012.
    Our own military in Afghanistan has repeatedly pointed to the need 
for more Afghan forces. As Colonel Bill Hix, former commander of the 
Afghan Regional Security Integration Command put it, ``The U.S. force 
is growing down here, but the Afghan force is not growing nearly as 
fast. We have people who are bleeding and dying, and we need to look 
hard at how we generate [Afghan] forces.'' A Marine company commander 
in Helmand, Captain Brian Huysman, put it this way, ``[The lack of 
Afghan forces] is absolutely our Achilles heel.''
    In the sector of Helmand province Senator Reed, Senator Kaufman and 
I visited earlier this month, our marines outnumbered Afghan soldiers 
by 5 to one.
    We have been assured by Afghan Defense Minister Wardak that there 
is no shortage of volunteers to reach this goal. We will need 
significantly more trainers to achieve this. We asked Major General 
Formica, who is in charge of the American effort to train the Afghan 
security forces, to assess what would be required, including the North 
Atlantic Treaty Organization (NATO) and U.S. trainers, to meet that 
timetable. In the meantime, we should also press our NATO allies much 
harder to provide more trainers.
    A larger Afghan military will require more equipment. There needs 
to be a major effort to determine these requirements and to transfer 
equipment coming out of Iraq on an urgent basis to Afghanistan to meet 
those requirements. There has not yet been a crash effort to transfer a 
significant part of the enormous amount of equipment coming out of Iraq 
to the Afghan security forces. A plan needs to be developed 
immediately.
    In addition, we need a plan for separating local Taliban fighters 
from their leaders. In Iraq, large numbers of young Iraqis who had been 
attacking us switched sides and became ``the Sons of Iraq.'' That same 
prospect exists in Afghanistan. Afghan leaders and our military leaders 
say that local fighters, most of whom are motivated not by ideology or 
religious zeal but by the need for a job or loyalty to their tribe, can 
be brought over to the government's side, if offered the right 
incentives. General McChrystal himself has said, ``There is significant 
potential to go after what I call mid- and low-level Taliban fighters 
and leaders and offer them re-integration into Afghanistan.'' We can 
draw on the lessons from the Sons of Iraq in working with Afghan 
leaders to adopt and implement a plan without delay for turning some 
enemies into allies in Afghanistan. Such a plan requires assurances of 
protection and non-retribution, as well as prospects for jobs, 
including in the Army and police. The potential positive impact of such 
a concerted effort should be taken into account in considering the need 
for additional U.S. combat forces.
    The Afghan people want to provide for their own security. In a tiny 
village in Helmand Province in the south, the three of us met with the 
elders at their village council, or Shura. One hundred or so men sat on 
the floor and chatted with us about their future and their country's 
future. When asked how long the United States should stay, they said, 
``Until the minute that you make our security forces self-sufficient. 
Then you will be welcome to visit us, not as soldiers but as guests.''
    Providing the resources needed for the Afghan Army and Afghan 
police to become self-sufficient would demonstrate our commitment to 
the success of a mission that is in our national security interest, 
while avoiding the risks associated with a larger U.S. footprint. I 
believe these steps should be urgently implemented before we consider a 
further increase in U.S. ground combat troops, beyond what is already 
planned to be deployed by the end of the year.
    Pakistan's tribal region along the border with Afghanistan remains 
a major source of instability for both Afghanistan and Pakistan. There, 
militant extremists continue to find a safe haven from which to conduct 
attacks on our forces in Afghanistan and to threaten the security of a 
democratic Pakistan. Based on our discussions in Islamabad earlier this 
month, it appears that the Government of Pakistan is recognizing the 
threat that extremist groups pose to their country's survival. Progress 
is being made, but more still needs to be done to strengthen Pakistan 
in its efforts to take on these extremists. It remains an open question 
whether Pakistan is prepared to go after the Afghan Taliban leadership 
operating out of Quetta in Pakistan's Baluchistan province or the 
Haqqani militants in North Waziristan, which is the major source of 
attacks on our troops in eastern Afghanistan. I hope the Pakistan 
Government decides to do so promptly.
    While the security situation has improved in Iraq, a major 
challenge remains in the implementation of the U.S.-Iraq security 
agreement and the transfer of responsibility for Iraq's security to 
Iraqi forces. The ongoing drawdown of U.S. forces from Iraq represents 
one of the greatest movements of equipment in history. U.S. equipment 
in Iraq should be transferred both to ensure that the Iraqi security 
forces have the minimum capability to meet their internal security 
needs and, as I mentioned earlier, to meet the requirements of more 
rapidly growing the Afghan security forces. Approximately 125,000 U.S. 
troops still remain in Iraq and most will continue to provide security 
through the Iraqi elections in January.
    Numerous other challenges exist. These include: a confrontational 
Iran which continues to threaten regional stability and advance its 
nuclear ambitions; North Korea's belligerence; negotiations with Russia 
on extending the Strategic Arms Reductions Treaty, set to expire this 
December, and exploring possible U.S.-Russian cooperation on missile 
defense; and vigilance toward emerging sources of instability and 
extremism, such as the situation in Yemen. On top of this, the 
Department is updating the National Military Strategy and conducting 
the pending Quadrennial Defense and Nuclear Posture Reviews.
    Additionally, the tempo of major operations has placed significant 
stresses and strains on our forces and their families. Improving dwell 
time and the quality of life of our men and women in uniform remains a 
priority.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. I thank you, Mr. Chairman, and I join you 
in welcoming Admiral Mullen and thank him for his service and 
his family for their support.
    Admiral, I believe that you and Secretary Gates have done a 
superb job and obviously you are extremely well qualified for a 
second term as Chairman and we're grateful for your long years 
of service to our country in uniform.
    At your last confirmation hearing in July 2007, I made a 
statement then, and things were certainly not clear as to what 
we were going to do in Iraq. I said: ``There are no easy 
choices in Iraq and the temptation is to wash our hands of this 
messy situation. To follow this impulse, however, would portend 
catastrophe. Withdrawing before there's a stable and legitimate 
Iraqi authority would turn Iraq into a failed state and a 
terrorist sanctuary in the heart of the Middle East. We have 
seen a failed state emerge after U.S. disengagement once before 
and it cost us terribly. In pre-September 11 Afghanistan, 
terrorists found sanctuary to train and plan attacks with 
impunity. We can't make this fatal mistake again.''
    Despite our successes in Iraq and the hard-won 
understanding we have gained about what it takes to defeat an 
insurgency, it seems we now, regrettably, must have the same 
debate again today with respect to Afghanistan. With all due 
respect, Senator Levin, I've seen that movie before.
    I've been encouraged over the past year by the statements 
and actions of the President and the unequivocal priority he 
has placed on achieving success in Afghanistan. In March the 
President acknowledged that the situation in Afghanistan is 
``increasingly perilous'' and that the future of this troubled 
nation is inextricably linked to the future of its neighbor 
Pakistan. To the terrorists who oppose us, his message was: 
``We will defeat you.'' The President's approval of increases 
in troop strength was needed then and I believe even more 
necessary now.
    I've also been impressed, Admiral, by your commitment and 
that of Secretary Gates to success in Afghanistan. You've been 
clear that defeating the Afghan and Pakistan Taliban is a 
necessary component of the President's strategy. General 
McChrystal, as we know, has completed an assessment of the 
challenges still standing in the way of meeting the President's 
strategy, which clearly will be the requirement for increased 
troops. I want to emphasize, every day we delay in implementing 
this strategy and increasing the number of troops there, which 
we all know is vitally needed, puts more and more young 
Americans who are already there, their lives in danger. I don't 
think we should do that.
    Soon, General McChrystal recommends how many additional 
troops he thinks are necessary. I hope we won't delay the 
decision for long and will approve the troop increases that we 
know are being sought by General McChrystal working with 
General David Petraeus.
    Senator Levin obviously, as he stated, supports a 
significant acceleration in the growth of the Afghan security 
forces and an increase in the number of trainers we should 
provide. I agree with this approach. I strongly disagree with 
the ``wait and see'' recommendation that we should deploy no 
additional U.S. combat forces to Afghanistan until this action 
has been taken. I believe that this position would repeat the 
nearly catastrophic mistakes of Iraq and significantly set back 
the vital war effort in Afghanistan.
    The lesson of Iraq is that we make little progress merely 
by putting Afghan volunteers through a training course and 
releasing them into combat. In fact, when precisely this 
approach was tried in Iraq, Iraqi units collapsed repeatedly in 
the face of attacks. It took mentorship at every level, 
including partnership in joint operations with U.S. forces, 
that built a capable Iraqi security force.
    Similarly, mentorship at all levels is required to build a 
robust and capable Afghan military and pave the way for our 
eventual successful exit in Afghanistan. To do this, we will 
need more U.S. combat forces in Afghanistan, not less or the 
same amount as we have today.
    Vital areas in Afghanistan are controlled by the Taliban 
and its surrogates today. It will require U.S. military force 
to shape, clear, hold, and build in these areas. If we await 
the day when the Afghan National Army is increased in size and 
capable of carrying out all of these operations fully on its 
own, it may well be too late.
    Admiral, as I express these views I am mindful of the 
stress on our force and the tremendous sacrifices being made by 
the men and women of the Armed Forces and their families. 
Admiral, I think I speak for all Senators in thanking you for 
your personal efforts to address the welfare of our wounded 
warriors and to implement more effective policies aimed at 
providing improved resources to eliminate barriers to seeking 
help for the emotional trauma of combat, to prevent suicides, 
and to do better in evaluating and responding to disabilities 
suffered while on Active Duty.
    I also want to express my appreciation for the efforts you 
and Secretary Gates are making to improve our acquisition 
process. We have a long way to go and, as the Secretary has 
indicated, our weapons systems must impose greater costs on our 
current enemies than they do on us. The recently passed 
legislation I hope will further our efforts in that direction.
    I hope we will hear more today about what steps need to be 
taken to improve the requirements process and on the rapid 
acquisition process. I urge you and Secretary Gates to continue 
to advocate in the strongest possible terms for the weapons 
systems we need for the readiness and effectiveness against our 
current enemies.
    Thank you.
    Chairman Levin. Thank you, Senator McCain.
    Admiral Mullen.

     STATEMENT OF ADM MICHAEL G. MULLEN, USN, NOMINEE FOR 
      REAPPOINTMENT TO BE CHAIRMAN, JOINT CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Senator McCain, distinguished 
members of this committee, thank you for hearing my testimony 
today. I also thank the President and Secretary Gates for their 
confidence in me. It's been my great honor to serve as Chairman 
these past 2 years and, if confirmed by the Senate, I will 
remain as humbled by the opportunity to continue that service 
as I will remain steadfast in the execution of my duties.
    I'm joined this morning by my wife Deborah, who has also 
been steadfast in her commitment to the welfare of our troops 
and their families, not only during my term as Chairman, but 
throughout this long military career we have shared. I value 
her counsel and her company. But more critically, I know I 
would not be here, that I could not have endured the challenges 
presented me over the course of these 41 years, without her 
love and unfailing support.
    I would add to that the love and support of our two sons, 
Jack and Michael, both serving today on Active Duty in the U.S. 
Navy. They are but 2 of the 2.2 million sons and daughters of 
America I strive best to represent. No decision I make or 
advice I give is done without thinking about the impact on our 
troops and their families.
    The truth is, our people have been stretched and strained 
by 8 years of persistent combat in two theaters of war, not to 
mention the steady drumbeat of training and operations demanded 
by our security commitments around the world. This strain 
manifests in many ways: fatigue and stress, marital and family 
difficulties, homelessness, and an alarming number of suicides. 
We ought not forget as well the more than 5,100 troops killed 
since September 11 or the 35,000 wounded, each one a noble 
sacrifice worthy of our solemn attention.
    Countless others suffer in silence with wounds we never 
see, with nightmares we never know. Physical or otherwise, 
these wounds of war represent a family's life forever changed.
    As do you on this committee, I am committed to improving 
the care we provide now and into the future for all of these 
casualties and their families. Yet, for all this suffering and 
all this change, our people are the most resilient I have ever 
seen. They have endured much, yes, but they have also learned 
much and grown much.
    Consider Iraq, where only 3 short years ago many people had 
given up on the effort. Today there's no question that security 
is much, much better and that the Iraqi security forces are 
increasingly more able to protect their own people. Violence 
persists and al Qaeda still threatens, but we are now in a 
position, the Iraqis are now in a position, for us to continue 
drawing down our forces, due in large part to our great 
military men and women.
    We have made great strides in wounded care, particularly on 
the battlefield. We have become more nimble in collecting, 
disseminating, and acting on intelligence. Our Army has 
restructured itself to be a far more expeditionary force. The 
Marine Corps has refined a new concept of expeditionary 
maneuver warfare. Our Navy has taken back its riverine mission, 
and our Air Force is revitalizing its strategic nuclear rule.
    But the biggest area of learning and growth has been in 
counterinsurgency warfare. Indeed, I believe we are today the 
best counterinsurgency force in the world, having learned anew 
so many valuable lessons over these last 8 years. As I noted, 
we didn't get here without great sacrifice in blood and 
treasure. Our knowledge came at a heavy price.
    Now that we have shifted our main effort east to 
Afghanistan, where the Taliban insurgency grows in both size 
and complexity, we must apply that knowledge to the best of our 
ability. That is why I support a properly resourced, 
classically pursued counterinsurgency effort.
    The President has given us a clear mission: disrupt, 
dismantle, and defeat al Qaeda and its extremist allies and 
prevent Afghanistan from becoming a safe haven again. You can't 
do that from offshore and you can't do that by just killing the 
bad guys. You have to be there, where the people are, when they 
need you there, and until they can provide for their own 
security. This is General McChrystal's view and it is my view 
and that of General Petraeus in the Joint Chiefs.
    Now, not every lesson from Iraq will apply, but the big 
ones will: protect the people, connect them to the political 
process, enable them to provide for their own security. The 
enemy in Afghanistan is not the insurgent. The enemy is fear. 
If you can remove the fear under which so many Afghans live, if 
you can supplant it with security and good governance, then you 
can offer them an alternative to Taliban rule. If they have an 
alternative to Taliban rule, they will choose it.
    To be sure, the President's strategy is a regional one, 
recognizing that the ideology shared by al Qaeda and the 
Taliban knows no border and that this area remains the 
epicenter of violent Islamic fundamentalism. An Afghanistan 
resistant to extremism, free of such sanctuary, will help 
bolster the efforts of neighboring Pakistan to become the same. 
On the other hand, if the Taliban succeed in governing at the 
state level, as they have already succeeded in many local 
areas, al Qaeda could reestablish the safe havens they enjoyed 
in Afghanistan at the end of the last decade and the internal 
threat to Pakistan by extremism will only worsen.
    So how best to prevent it? How best to provide for Afghan 
security and governance? Ultimately it should be provided by 
the Afghans themselves. As you rightly pointed out last week, 
Mr. Chairman, I share your view that larger and more capable 
Afghan national security forces remain vital to that nation's 
viability. I share your view and have stated publicly that the 
path to achieving the President's goal is through our training 
efforts there. We must rapidly build the Afghan army and 
police. I agree that we must develop more and better ways to 
peel away those not ideologically committed to the insurgency 
and reintegrate them back into productive society.
    But we cannot achieve these goals without recognizing that 
they are both manpower and time-intensive. More important than 
the size of the Afghan security forces is their quality. More 
important than the orders they follow is the leadership they 
exude. More important than the numbers of Taliban we turn are 
the personal lives they themselves turn around.
    Sending more trainers more quickly will give us a jump 
start, but only that. Quality training takes time and patience. 
Private trust by the Afghans, so vital to our purpose, is not 
fostered in a public hurry.
    Now, I do not know exactly what additional resources 
General McChrystal may ask for and I do not know what ratio of 
training to combat units he really needs. We'll get to all of 
that in the coming weeks. But I do believe that, having heard 
his views and having great confidence in his leadership, a 
properly resourced counterinsurgency probably means more forces 
and without question more time and more commitment to the 
protection of the Afghan people and to the development of good 
governance.
    We can get there. We can accomplish the mission we've been 
assigned. But we will need resources matched to the strategy, 
civilian expertise matched to military capabilities, and the 
continued support of the American people.
    We also need to remember that we have other 
responsibilities, other threats to counter, and other missions 
to complete, and that as we responsibly draw down in Iraq and 
work towards success in Afghanistan we must remain ready to 
deter conflict elsewhere, improve the capacity of our allies 
and partners, and prepare for a broad spectrum of challenges, 
both conventional and unconventional.
    Again, thank you for this opportunity and thank you for all 
you do on this committee to support the men and women of our 
military and their families as they protect our vital national 
interests in these very challenging times.
    Chairman Levin. Admiral, thank you so much for your opening 
statement and again for your great service.
    Let's try a 7-minute first round.
    Admiral, has General McChrystal submitted yet a request for 
specific additional resources for Afghanistan?
    Admiral Mullen. No, sir, he has not.
    Chairman Levin. Has a decision been made on whether to 
commit additional U.S. forces to Afghanistan beyond the 17,000 
combat troops and the 4,000 trainers that the President 
approved in February?
    Admiral Mullen. No, sir.
    Chairman Levin. Has the recommendation been made by you or 
Secretary Gates to President Obama relative to sending 
additional troops to Afghanistan?
    Admiral Mullen. Sir, we've made our recommendation based on 
the assessment, but, not having received the request from 
General McChrystal yet, we've made no recommendation with 
respect to forces.
    Chairman Levin. How many of the 17,000 combat forces and 
the 4,000 trainers that were previously committed, how many of 
them have arrived in theater and when will the balance arrive?
    Admiral Mullen. They are all just about there. The balance 
will be there by the end of this month. The last group is 
really the 4th of the 82nd trainers, who are at the end of 
their arrival getting in place and will take over the mission, 
the training mission of these 4,000 soldiers, very quickly.
    Chairman Levin. You've testified, Admiral, that an 
essential step in regaining the initiative in Afghanistan and 
to succeed there is to build the capacity of the Afghan 
security forces, the Afghan army and police, and empowering 
them to provide security for their own country. Is the Afghan 
army respected by the Afghan people?
    Admiral Mullen. It is from my perspective the most 
respected institution in Afghanistan.
    Chairman Levin. Are they committed fighters?
    Admiral Mullen. They are. They've been fighting for a long 
time.
    Chairman Levin. How many additional trainers is it going to 
take to build the Afghan army to, let's say, 250,000?
    Admiral Mullen. The rough estimate is somewhere between 
2,000 and 4,000 in terms of overall trainers.
    Chairman Levin. Is that additional to what's there now?
    Admiral Mullen. Yes, sir.
    Chairman Levin. What is there now?
    Admiral Mullen. Training-wise it's about--I think it's 
about 6,000-6,500.
    Chairman Levin. How many of those additional trainers 
should be supplied by NATO?
    Admiral Mullen. As many as possible. Countries who are 
capable--and they are some very capable countries in NATO at 
training both police and the army--we would like to see them 
step up as much as possible.
    Chairman Levin. When you gave a number for additional 
trainers for the army, does that include additional trainers 
for the police or is that a separate number?
    Admiral Mullen. No, that's inclusive, yes, sir.
    Chairman Levin. On the equipment issue, would you agree 
that as we withdraw equipment from Iraq that a major priority 
should be transferring to Afghanistan the equipment needed to 
build the capacity of the Afghan security forces to provide for 
their security?
    Admiral Mullen. Yes, sir.
    Chairman Levin. What is being done in that regard?
    Admiral Mullen. Well, in fact your question when you came 
back off this trip caused us to focus, to see exactly where we 
were. I met yesterday with General Petraeus and General 
McChrystal, had a video teleconference with them, where we 
discussed this. In fact, there are some 2,000-plus Humvees in 
Kuwait which are being refurbished, that will be accelerated 
into Afghanistan, and the required focus on this to make sure 
that we are moving that as rapidly as we can.
    It's also tied to their ability to absorb this and train to 
it.
    Chairman Levin. Is that review going to be conducted to 
determine what other types of quantities of equipment would be 
needed and usable?
    Admiral Mullen. Right. We're doing a full-scale review in 
that regard.
    Chairman Levin. When will that review be completed?
    Admiral Mullen. I think we'll know that within the next 
couple of weeks.
    Chairman Levin. You will make that available to us?
    Admiral Mullen. Yes, sir.
    Chairman Levin. Is that going to take any additional 
legislation, do you know?
    Admiral Mullen. No, sir, I'm not aware of any right now.
    Chairman Levin. General McChrystal has spoken and I think 
you have too, as a matter of fact, as has the Secretary, about 
the great potential for reintegrating local Taliban fighters 
and getting them to switch over to the government side. Now, 
there's a lot of differences between Afghanistan and Iraq, but 
one of the similarities could be that incentives for low- and 
mid-level Taliban fighters to switch from enemies to allies 
could be put in place.
    Number one, is a plan now going to be developed to put into 
place an approach in Afghanistan to reintegrate young Afghan 
fighters?
    Admiral Mullen. Yes, sir. There is a British general by the 
name of Graham Lamb who did this in Iraq and who is now working 
for General McChrystal, and has initiated--I don't want to 
overstate this--putting in place a program to focus on mid-
level and lower-level fighters who would like to turn 
themselves in and do so in a way, obviously, in which they are 
both protected and that they have a future, so in that regard 
similar to Sons of Iraq.
    Chairman Levin. Has that plan been worked out with Afghan 
leaders?
    Admiral Mullen. It includes Afghan leaders in its initial 
inception, which we're really at the beginning of right now. 
We're not very far down that road.
    Chairman Levin. What's been the delay in getting that done?
    Admiral Mullen. Actually it has not been an area of focus 
and we haven't had somebody there like Lamb to focus on it.
    Chairman Levin. This committee, over two-thirds of us, 
signed a letter back 4 or 5 months ago on the question of the 
size of the Afghan forces and we pointed out that the Afghan 
defense minister has called for an army of between 250,000 and 
300,000 soldiers. The minister of interior in Afghanistan 
supported a strategic increase in the size of the army. We 
urged you to declare a target at that time for end strengths 
for the army and the police to those levels.
    I'm just wondering what has been the delay in adopting 
goals for the increase in the size of the Afghan army, given 
what our people on the ground say, which is that their presence 
with us, obviously as mentors, as partners, is critical to the 
security for Afghanistan. What has been the delay in 
establishing the larger goals?
    Admiral Mullen. I think if there's been any reason for a 
delay it's been where we are now in terms of our overall 
numbers, which is at 93,000 in the army and about 90,000 in the 
police. The timing of your letter came right about at the time 
we were making a leadership change out there.
    General McChrystal has embraced the requirement to grow 
these forces and grow them more rapidly, and I'm sure that will 
be part of the output of the assessment, if you will, because 
we're all very committed to making that happen. I would assume 
that as a result of this assessment we will establish those 
goals and I wouldn't expect them to be far off from what we're 
recommending, what was recommended before.
    Chairman Levin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Thank you, Admiral Mullen. On this issue of simply relying 
on the buildup of the Afghan army, we tried that for several 
years in Iraq. As you may recall, by April 2004, in fact, the 
Department of Defense (DOD) reported that there were 208,000 
Iraqis either on duty or being trained for security units. The 
same month, attacks by Sunni and Shia; basically, the Iraqi 
army collapsed. What we found out, that we succeeded only after 
we instituted a practice of mentorship, including joint 
operations with U.S. combat forces at every level, that we saw 
marked improvement in the Iraqi forces.
    Is there any reasonable scenario, Admiral, in which trained 
Afghan security forces can handle the bulk of the fighting over 
the near to medium term?
    Admiral Mullen. No, sir.
    Senator McCain. If we followed such a course, do you think 
the situation in Afghanistan would improve or get worse?
    Admiral Mullen. I think it would probably continue to 
deteriorate.
    Senator McCain. Thank you.
    Admiral, General McChrystal's assessment of our strategy in 
Afghanistan has been closely held and is currently under 
review, as you stated, both in the Pentagon and the White 
House. The assessment as I understand it contains no resource 
requirements or requests for additional troops, but is instead 
being described as a new strategy for the President's 
consideration and endorsement.
    Yet last March didn't the President adopt a new strategy 
for Afghanistan with considerable fanfare?
    Admiral Mullen. Yes, sir. I think that the description of 
General McChrystal's assessment that it's a new strategy--and 
in fact he uses those words, but his use of those words is 
really focused on a new implementation strategy for the 
President's strategy, which is the baseline for his review as 
he arrived in command and conducted it.
    So General McChrystal's assessment assesses the 
implementation strategy required to execute the President's 
strategy which he rolled out at the end of March. His is not a 
new strategy.
    Senator McCain. Thank you.
    Obviously, a strategy in order to succeed requires an 
assessment of resources needed, right?
    Admiral Mullen. Yes, sir.
    Senator McCain. A vital component of resources is manpower, 
personnel, right?
    Admiral Mullen. Yes, sir.
    Senator McCain. Now, help me through why we have a 
restatement of the President's strategy which was announced in 
March and yet there is no recommendation on what is obviously 
the most important aspect, both strategically and domestically? 
I'm talking about politics here in the United States. Why would 
it take weeks and weeks to make an evaluation and reach a 
decision?
    Admiral Mullen. The process that we are going through is to 
have General McChrystal assess it both for the President as 
well as for NATO. It's a dual assessment in that regard. Quite 
honestly, he found conditions on the ground tougher than he had 
thought. He went with General David Rodriguez, who had been 
absent about a year out of Afghanistan. He found it tougher. 
The importance of the fullness of that assessment and what it 
was going to take from the President's strategy, to include a 
second part, which is, okay, here's how I found it and these 
are the resources that I need.
    Now, he's done extensive analysis to underpin those force 
options. My expectation is that they will be submitted in the 
very near future. The administration wanted time to review it 
in terms of what General McChrystal found. One of the things 
that is very important to me is that, whatever the strategy is, 
and right now it's the 27 March strategy, is that we properly 
resource it.
    That's where we are today. I would anticipate he will be 
submitting that request in the very near future.
    Senator McCain. As you stated this month, ``Time is not on 
our side.''
    Admiral Mullen. No, sir. I have a sense of urgency about 
this. I worry a great deal that the clock is moving very 
rapidly. There are lots of clocks. But the sense of urgency, I, 
believe me, share that with General McChrystal, who, while he 
is very focused on a change which includes partners, a focus on 
the Afghan people, he is alarmed by the insurgency and he is in 
a position where he needs to retake the initiative from the 
insurgents, who have grabbed it over the last 3 years.
    Senator McCain. I thank you, Admiral. But then I am 
frustrated and curious as to why the President's spokesperson 
yesterday should say it takes ``weeks and weeks.'' We're 
restating a strategy. We know what the resources are that are 
required. Yet it would take ``weeks and weeks.''
    Meanwhile, ``weeks and weeks'' go by and without the new 
strategy and the implementation of it or, excuse me, the 
implementation of the resources recommendation; there are more 
and more Americans who are at great risk. That is really 
bothersome. Already in the media there's speculation that the 
President doesn't want to make an announcement on troop 
increases because of the present debate on health care. I 
believe that the President can do both.
    Let me finally ask, what do you anticipate the level of 
fighting to be as we get into the winter months here?
    Admiral Mullen. Each winter the fighting recedes, but last 
winter it was significantly more than the previous one. In 
discussions with General McChrystal, there's a term that we use 
and have used in Afghanistan, which is the ``fighting season,'' 
but in fact we don't believe there's a fighting season. We 
think it's a 365-day-a-year fight for the people and for their 
support and for them to be able to be put in the position to be 
governed by the institutions in their country.
    So much of the combat recedes, but, quite frankly, in the 
winter it is just as important to be engaged with the people as 
it is right now.
    Senator McCain. The sooner we get immediate resources over 
there, the sooner we can turn this situation around.
    Mr. Chairman, I would strongly recommend that we do as we 
have in the past and ask General McChrystal and General 
Petraeus to come before the committee and testify so that we 
can better understand the situation both there in Afghanistan 
and what we can expect in the future.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    First, Admiral Mullen, let me thank you for your really 
extraordinary service to our country. I think you've done just 
a great job as Chairman of the Joint Chiefs in every way. You 
haven't always given us the answers that we have been looking 
for, but that really is exactly what we expect you to do. 
You've shown great leadership here, really grace under pressure 
is the way I will put it. So I will enthusiastically support 
the President's renomination of you for a second term. I 
appreciate it. Your wife has urged me to think twice about my 
support of that, but nonetheless I'm going to go forward.
    In the opening statements of Chairman Levin and Senator 
McCain, we I think see the dimensions of the beginning of a 
very serious national debate about our presence in Afghanistan. 
It's an important national debate that has to happen here in 
Congress and hopefully throughout the country, and in some 
senses it is a debate that has not yet occurred in all the time 
we've been in Afghanistan. Our support of the war in 
Afghanistan was a natural response to the attacks against us of 
September 11. There was almost total support of that.
    After we went into Iraq, Afghanistan in many ways, 
including in the debates here in Washington, became the other 
war. It was even so during the campaign for President last 
year, where the differences between Senator McCain and Senator 
Obama really had to do with Iraq, and both generally agreed on 
Afghanistan. In fact, then-Senator Obama was really quite 
strong in stating that Afghanistan was the central front of the 
war on terrorism, a war of necessity we could not muddle 
through. To now-President Obama's credit as far as I'm 
concerned, he's followed through on those statements, 
particularly with the announcement of the new strategy in March 
and the deployment of 21,000 additional American troops to back 
up that deployment.
    I appreciate the clarity that's emerged in the discussion 
that we've had here this morning, that what General McChrystal 
has been asked to do is not develop a new strategy for 
Afghanistan, because that's been done. It's to give a strategic 
assessment of where we are now and what we need to succeed. In 
some sense for us to reject that assessment and the reports 
that are necessary to carry it out would be a change in the 
strategic decision that President Obama made earlier this year.
    The strategic policy we're following in Afghanistan does 
learn from the lessons of Iraq, although this is a different 
battlefield. The good news here is that there's no dissent, 
even as we listen to the different positions that Chairman 
Levin and Senator McCain have articulated, about the need to 
succeed in Afghanistan, both because it would be inexcusable to 
allow the Taliban to regain control of that country and bring 
back al Qaeda, which of course planned the attacks on us of 
September 11 and trained for them from there.
    It's also true, and I want to stress this--and you've said 
it yourself here, I think quite eloquently--a failure in 
Afghanistan would have, I think, a devastating effect on our 
efforts to stabilize neighboring nuclear Pakistan. There's just 
no question about it.
    We start with those similar goals and it seems to me the 
question now is how do we succeed. Chairman Levin has offered 
an alternative, which is to go with trainers for at least a 
year and no additional combat troops. Senator McCain has said 
we need combat troops now, we need more of them, and as quickly 
as possible, and I agree with Senator McCain.
    I hear you to say this morning, Admiral Mullen, that, based 
on the strategy that the President adopted, the new strategy he 
adopted in March, and the strategic assessment that General 
McChrystal has now given the President, you, and Secretary 
Gates, from the battlefield, though you have not seen and 
General McChrystal has not submitted a specific request for 
specific numbers of troops, that your conclusion is that we 
need to send more combat troops to Afghanistan.
    Admiral Mullen. I've said in my opening statement that it's 
very clear to me we will need more resources to execute the 
President's strategy from the end of March. I really await the 
submission from General McChrystal, which I think is going to 
occur here very quickly, to evaluate specifically what that 
means and to look at the risks associated with various options.
    Maybe I can give a little better answer to the chairman on 
why we weren't doing a program like the one Graham Lamb is now 
in charge of. We very badly underresourced Afghanistan for the 
better part of 4 or 5 years. I've spoken about a culture of 
poverty. That's been interpreted to focus on the poverty level 
in the country. That isn't what I meant. Certainly that is a 
problem, but we have a culture of poverty there amongst us in 
terms of being underresourced, an economy of force, for this 
extensive period of time, to get to a point where we didn't 
have the wherewithal to create a program like that, not that we 
didn't think it would be needed.
    The totality of that underresourcing is something we're 
just coming to grips with. It's not as simple as trainers or 
not as simple as combat troops. It's are you committed, as the 
Afghan people look at it, are you committed as the Paks look at 
it. This is a regional area that is the epicenter of terrorism.
    Every time I go--and I'm sure it happens to you as well--
when you're in Afghanistan or Pakistan, the question that is on 
their lips is: Are you staying or are you going?
    Senator Lieberman. Are you staying or are you going to go?
    Admiral Mullen. Are you with us or not?
    Senator Lieberman. Right. My concern is that Chairman Levin 
I know is well intentioned, but if we just send trainers and 
don't send more combat troops, particularly if it's clear that 
General McChrystal has requested them, then I believe the 
Afghan people and the Pakistani people are going to decide 
we're essentially on our way out, and they're going to make 
some judgments based on that and take actions that will not be 
what we want them to do.
    Do you agree?
    Admiral Mullen. I'm very concerned about--the Afghan people 
are waiting on the sidelines for how committed we are and, 
quite frankly, so are the people of Pakistan. I said in my 
opening statement I believe in a fully resourced 
counterinsurgency. These are the lessons from Iraq that we have 
learned. They have been very painful and, quite frankly, we 
need those lessons in a timely manner applied right now, with 
the level of deterioration that we've had in Afghanistan, 
particularly over the last 3 years.
    Senator Lieberman. I agree.
    The last question, because I think you've said clearly 
today that the momentum, the initiative right now in 
Afghanistan--and General McChrystal told us that when we 
visited him in August--is not on our side.
    Admiral Mullen. Right.
    Senator Lieberman. Sending more trainers and more combat 
troops gives us a much higher probability of regaining the 
initiative in this critical battle.
    Admiral Mullen. The issue of regaining the initiative is 
absolutely critical. General McChrystal, I spoke to him 
yesterday. He emphasizes that each time that I engage with him.
    Senator Lieberman. Final question. Isn't one of the lessons 
we learned from Iraq and Anbar Province that the Sons of Iraq 
turned away from al Qaeda in our direction after they were 
confident that we were not leaving, in fact we were going to 
surge our troops there? Isn't it true that any effort to break 
away local Taliban who are not Islamic fanatics requires us 
similarly to convince those local Taliban that we're committed 
to this fight and if they come to our side they're going to be 
winners, not losers?
    Admiral Mullen. Yes, sir.
    Senator Lieberman. Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, Admiral Mullen, for your leadership and service, 
and all the people that serve under you, your leadership. 
They've put their lives on the line to effectuate American 
policy that this Congress has directed them to do. Having sent 
them, we do need to listen to their advice about how to be 
successful.
    I know sending more troops to Afghanistan is a bitter pill 
to me, but I do think that Senator McCain, Senator Lieberman, 
and others have made the case in Iraq at a very difficult time 
that we needed to strengthen our presence and if we did we 
could be successful, and actually things went better than we 
could have expected at this point in Iraq.
    I'm inclined to think that we need to listen to that wisdom 
again. But I do believe that every area of the world is 
different. I think Afghanistan is different to some degree than 
Iraq, but there are a lot of lessons that we can apply there. I 
won't go into details about that today, but I do look forward 
to hearing from Generals McChrystal and Petraeus, and we can 
fulfill our constitutional role in this process to examine the 
facts and make sure that we're supporting a good policy that 
will be successful.
    Admiral Mullen, you signed off on the President's budget 
this year, I suppose it's fair to say? Is that correct?
    Admiral Mullen. Yes, sir. I'm not sure a signature, but I'm 
certainly supportive of it.
    Senator Sessions. I don't, and I'm worried about it. What 
is the personnel increase that we expect to occur as a result 
of this budget? How many? Is it 30,000 troops?
    Admiral Mullen. The question that I think you're asking 
about is an increase of 22,000 for the Army, a temporary 
increase over a period of about 3 years. What it really 
addresses is the need to make up for losses which are occurring 
principally in our large units. So a brigade of 3,500, now the 
number of soldiers who are falling out before deployment has 
about doubled since the war started. So we're rushing other 
people into these brigades.
    That 22,000 will essentially greatly reduce the churn at a 
time where we're transitioning out of Iraq, we obviously don't 
know what our final level or our level in Afghanistan is going 
to be, and as we work to, given the overall requirement, get to 
a dwell time that's increased from 1:1 to 1:2. But principally 
it's focused on getting at the churn that's in the system. It's 
not going to add any additional capability. That's why it's 
temporary.
    Senator Sessions. We authorized, I believe Senator 
Lieberman's legislation authorized, up to 30,000.
    Admiral Mullen. I think, yes, sir.
    Senator Sessions. So that you've decided or DOD's decision 
is to do 22,000. Does that mean that we will have 22,000 more 
people on the payroll?
    Admiral Mullen. I think we'll get an additional 15,000 next 
year in 2010, with 7,000 more after that in 2011. Then 
literally to get back down you have to start coming down pretty 
fast.
    Senator Sessions. You don't see this as a permanent thing?
    Admiral Mullen. No.
    Senator Sessions. I'm inclined to think the personnel 
certainly are needed today and I support that, and I am worried 
about the dwell time of our soldiers and the redeployment rate. 
But I just have to say what's worrying me in another area is 
that the amount of money once you fund this new surge of troops 
and you get a 3 percent increase in your budget and certain 
costs go up each year in maintaining your personnel and all the 
matters from energy to whatever in the defense budget, that 
procurement and research and development (R&D) are the things 
historically we see that get squeezed too much.
    We have an obligation, this President has an obligation, 
this Congress has an obligation, to fund the development and 
procurement of weapons systems today that we may not see in the 
inventory 5, 10, 15 years down the road.
    Isn't it fair to say that we should be concerned and very 
observant about the impact of this tight budget for the Defense 
Department on procurement, R&D, and perhaps other?
    Admiral Mullen. A lot of my life in Washington over the 
last decade has been spent in programming and budgeting, and I 
worked very closely with Secretary Gates to submit the budget 
amendment, and I'm very supportive of the decisions, hard as 
they were, that he made for programs that were running out of 
control, way overdue, costs increasing, et cetera, and others 
that didn't conceptually make sense. A lot of very tough 
decisions, but it's the best work I have seen since the mid-
1990s from my own personal point of view.
    Yes, I am concerned about increasing personnel costs. When 
I was the head of the Navy, 60 to 70 percent of my budget went 
to personnel costs. That's military, civilian, and direct 
support of contractors who helped us in carrying out our 
mission. That's gone up, and health care is a big part of that, 
but it's not exclusively that.
    I think one of the biggest issues we have actually in the 
defense budget is how do we control that, how do we come to 
grips with those costs? I need every single person I need and 
not one person more. That's very difficult, particularly when 
it takes up so much. I have to pay for my operations. That's 
another big undertaking. What's left is procurement and R&D. So 
when a budget gets tighter, clearly that's where the pressure 
is going to be felt.
    We do have to watch that. At the same time, I think the 
budget focuses on, first of all, people, which if you want me 
to bet on the future, that's where I would put my next marginal 
dollar. Second, it focuses on the wars that we're in and I 
think the wars that we're in have a lot to do with our future 
as well. We've learned an awful lot. Then obviously it focuses 
on what we see in the future.
    We're trying to bring it into balance, not try to undo the 
future. I think it took a significant step in that direction. 
I'm mindful that it's a lot tighter than it was and that we 
have to be very vigilant about the things that we do, the 
things that we buy and the things that we don't buy.
    Senator Sessions. Thank you. I know you understand that, as 
the top senior uniformed military leader in the country, you 
have a serious burden in that regard, and I hope that you will 
examine the impact of this very tight budget. I think our 
discretionary spending 7, 8, 9 percent increase this year, not 
counting the stimulus, and the military got very little, almost 
nothing, out of the stimulus and only a 3 percent increase in 
DOD total budget.
    So I hope that you will, and I expect that you will, 
evaluate that and let us know to what extent some of these 
decisions are impacting adversely the military of the United 
States. Will you do that?
    Admiral Mullen. Yes, sir. I'd only add that as budgets have 
gone up over the last decade one of the characteristics that 
evolves, or at least I watched it evolve, is we become less 
disciplined in our prioritization. We become less disciplined 
in our analysis, because there are resources there that don't 
have to be justified as much as when there's additional 
pressure on us.
    So we have to bring all those skills back to the fore, to 
the front, in order to make the right decisions. Senator McCain 
talked about and Senator Levin both this acquisition 
legislation, which is very powerful. Now we need to get at 
that. We need to execute it. We need to make hard decisions. We 
don't need the perfect solution. I don't need the 100 percent 
solution each and every time that I'm developing something. I 
need some high end stuff, there's no question about that, and 
it's very expensive.
    All those things are in play right now and we, believe me, 
take that all very seriously.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Admiral, thank you for your great service to the country 
over many years. Your family and you have led with great not 
only vision, but decency, and I appreciate it very much.
    Let me just as a first point, I would think that in trying 
to resource Afghanistan the first place to look would be within 
Central Command (CENTCOM). Is that your emphasis, to see if 
there are assets within CENTCOM, not only those that are 
presently there, but those that are scheduled to go there, 
which should be diverted into Afghanistan?
    Admiral Mullen. In fact, we've done a great deal of that 
already inside the foot print that the President has approved 
for Afghanistan, to move resources, intelligence, 
reconnaissance, surveillance, ground convoy, improvised 
explosive device (IED), counter-IED capability, to focus on 
force protection, the mine resistant ambush protected (MRAP), 
meeting the MRAP requirement there as well. We are very focused 
on moving people and capability from Iraq to Afghanistan.
    General Raymond Odierno has been terrific in looking at his 
risk, understanding what the need is, and been very supportive.
    Senator Reed. There seems to be an emerging consensus on 
increased trainers. Just for the record, I think there's, as 
you point out, an increased need for enablers. Where do we 
stand in terms of the enablers, the road-clearing teams, the 
intelligence and reconnaissance platforms?
    Admiral Mullen. Those that General McChrystal has asked for 
this year are on the way, basically through the end of this 
calendar year.
    Senator Reed. But he will presumably ask for additional.
    Admiral Mullen. That again clearly will be a part of this 
request. We just don't have the details yet.
    Senator Reed. One of the areas that has plagued us 
throughout our presence in Afghanistan is the lack of unity of 
effort. First there's the command and control problem. Second, 
there's I think a lack of coordination between our 
counterinsurgency operations and our counternarcotics 
operations. Then there's a certain lack of coordination between 
Afghan security forces and International Security Assistance 
Force (ISAF) forces and our forces. Then also, our conventional 
forces and our Special Operations Forces.
    Can you comment on--there's no silver bullet here, but 
unless we get these issues improved dramatically, increased 
resources won't help as much.
    Admiral Mullen. I agree, and General McChrystal has made 
this one of his top priorities, focus on the people, partner 
with them, and really the other one is to fix the unity of 
command. He's very clearly going to put whoever the senior 
person is in battle space in charge of all forces, including 
the special forces.
    We are standing up this three-star command, operational 
command, if you will, or tactical command. But General 
Rodriguez is standing it up as a NATO command. It will stand up 
by October 12 and we're on track to do that.
    We all agree that the command and control has been far from 
ideal and that these steps and others to make sure that our 
unity of command and unity of effort is very visible, and 
particularly to the Afghan security forces who we are working 
so closely with. He's making major changes to address that 
issue. I don't think it'll ever be perfect, but it will be much 
better than it has been.
    Senator Reed. Regardless, I think, of the presence of U.S. 
forces there, the limiting factor appears to me to be the 
Afghan forces, not only in the long run, but in the short run. 
We're operating now typically, as we saw in Helmand, with an 
American battalion and one Afghan company. But the impression I 
got from our commanders on the ground is that unless there's an 
Afghan presence it's hard to operate, not only tactically, but 
psychologically and symbolically you send a very wrong signal, 
that this is our war, not their war.
    Admiral Mullen. I think the chairman pointed out, I think 
the stories that came out when the marines initiated their 
first operation, and General Nicholson talked about what I 
recall is about a 10 to 1 ratio. Certainly we have Afghans 
present, but they are very thin. That gets to the whole issue 
of needing to build up those forces.
    Senator Reed. Let me just expand on one point. When we 
discussed on our return the training of the Afghan army, are we 
training, are we trying to train, an army with battalion, 
brigade, division staffs, or are we, because of this emergency, 
trying to focus on infantry companies and infantry company 
commanders, which you could probably produce much quicker than 
talented staffers?
    Admiral Mullen. General McChrystal's intent--I'll take the 
4th of the 82nd as an example. They're going to break down into 
platoon-sized units and they're going to focus at the platoon 
and company level specifically. There will be training 
certainly at company, battalion, and brigade headquarters 
level, but the main effort is going to be at that level.
    Senator Reed. The civilian surge. To be blunt, military 
forces can buy time, but the success there ultimately will be 
some type of political accommodation. Right now the Government 
of Afghanistan is dysfunctional within Kabul and not even 
present outside of Kabul. Is this civilian surge going well? If 
it's a function of resources, should DOD kick in the money? I 
know Secretary Vilsack, for example, wants to send more 
Agriculture people there, but he wants you to pick up the tab.
    Admiral Mullen. The best I know, there's no shortage of 
funds to do this. I liken it to Iraq. We are surging. It is not 
happening fast enough. It has Secretary Clinton's attention, it 
has Ambassador Holbrooke's attention. There are an awful lot of 
people working on it.
    We're just not a government that has been constructed to do 
this quickly. There is a plan and I think we're a little bit 
behind that plan, to surge upwards, like 500 or 600 to be there 
in the spring. But it's the spring. They're not there now. 
There are additional civilians who have arrived. There has been 
a major change in the embassy. But it's not happening as 
rapidly as it could.
    We can't do it without that help, first of all. Second, you 
talk about governance. I consider the threat from lack of 
governance to be equal to the threat from the Taliban. Both of 
those things have to be addressed.
    Senator Reed. The presidential election is grinding to a 
conclusion. To what extent will that affect the situation 
within Afghanistan in your view? There is a possibility that 
there could be a serious crisis of legitimacy that will impair 
the ability of a very dysfunctional government to function at 
all. Is that a factor that we have to consider?
    Admiral Mullen. I think the legitimacy of the Afghan 
Government at every level, not just the national level--that's 
where the election is--is a real concern, and that there needs 
to be a level of legitimacy that the Afghan people see in their 
government, whether it's local to national. There's a great 
question about that now and so far the elections have not 
helped.
    I think we need to get through these elections, see what 
the results are, see who we're dealing with, what the 
government looks like, and move forward accordingly. But that 
issue of legitimacy is a huge, huge issue.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    We all appreciate your service and I think you will be 
confirmed, hopefully with everyone's vote. I think you've 
earned that.
    Quite frankly, this is an opportunity to do an assessment 
about Iraq and Afghanistan. Football season's here at home and 
I'm trying to think of an analogy. From Senator Lieberman's 
question, it seems like we're on the defense in Afghanistan; is 
that fair to say?
    Admiral Mullen. I think that's probably fairly 
characterized.
    Senator Graham. In Iraq we're on offense? The Iraqi people, 
the Iraqi security forces?
    Admiral Mullen. I'm not sure I'd draw--clearly we're on a 
path to success with them.
    Senator Graham. Are we driving the ball in Iraq?
    Admiral Mullen. In that regard, we're certainly moving in 
the right direction.
    Senator Graham. Do you think we're inside the 20?
    Admiral Mullen. I'm not sure I'd say 20.
    Senator Graham. Okay.
    Admiral Mullen. But we're moving toward the red zone.
    Senator Graham. Okay, good. That's good. There we go. I got 
something I can understand here.
    The combined Afghan security forces and all coalition 
forces at this moment are not enough to reverse the lost 
momentum, is that correct?
    Admiral Mullen. From what General McChrystal says and what 
I said earlier about a fully resourced counterinsurgency, we 
are extremely concerned about the momentum that the Afghans 
have.
    Senator Graham. Okay. Well, the answer then would be that, 
no, the combined coalition forces and Afghan security forces 
are not enough to change the momentum?
    Admiral Mullen. They have not so far.
    Senator Graham. So there's two paths we can take. We can 
wait and get more Afghans or we can send more coalition forces 
and do the training.
    Admiral Mullen. Right.
    Senator Graham. Now, let's flesh that out a bit. How many 
tanks do the Taliban have?
    Admiral Mullen. I'm not aware they have any.
    Senator Graham. How many airplanes?
    Admiral Mullen. None.
    Senator Graham. Well, how are they doing this?
    Admiral Mullen. They've watched us. They're very good at 
it. It's their country. They know how to fight. They choose 
when to stay and when to go.
    Senator Graham. Do they have popular support?
    Admiral Mullen. More than anything else, they're 
intimidating the Afghan people. No, they're not held in high 
regard at all by the Afghan people.
    Senator Graham. So they're not held in high regard, they 
don't have an air force, they don't have any armor, but they're 
winning. That makes me conclude something has gone awry in 
Afghanistan, and the biggest threat in my opinion is not the 
Taliban, it's the governance. The only reason they possibly 
could have come back is because there's been a vacuum created. 
Is that fair to say?
    Admiral Mullen. I would agree with that.
    Senator Graham. That vacuum is a combination of poor 
governance and a lack of troop presence. Would you agree?
    Admiral Mullen. It is clearly the lack of legitimacy in the 
government at every level. The people don't get services from 
their government.
    Senator Graham. Let's find some common ground there. We 
could send a million troops and that will not restore 
legitimacy to the government; do you agree with that?
    Admiral Mullen. That is a fact.
    Senator Graham. Now, as to civilians, I just got back from 
a visit and I appreciate all of our civilians who are over 
there from different agencies. They're very brave. But quite 
honestly, they can't go anywhere. You could send 10,000 lawyers 
from the State Department to deal with the rule of law 
programs, but they're sitting on the base because if they leave 
the base they're going to get shot. Do you agree with that?
    Admiral Mullen. Yes, sir.
    Senator Graham. The only way they get off the base is they 
have a military convoy; is that right?
    Admiral Mullen. Right.
    Senator Graham. The same people who are driving them to 
meet the tribal leaders are also basically the same people 
training the Afghan army and the police forces; is that right?
    Admiral Mullen. Yes.
    Senator Graham. They're the same people fighting at night 
when they get attacked. I just want our colleagues to know that 
the security environment in Afghanistan from my point of view 
will prevent any civilian success until we change the security 
environment.
    How long would it take to train enough Afghan troops to 
change the momentum in your view, if you just did it with 
Afghan forces?
    Admiral Mullen. I think it'll take 2 to 3 years.
    Senator Graham. What will happen in that 2- or 3-year 
period, do you think, in terms of the security environment 
while we're training?
    Admiral Mullen. If we're just training?
    Senator Graham. Yes.
    Admiral Mullen. I think the security environment will 
continue to deteriorate.
    Senator Graham. It seems to me that we have one more shot 
at this; is that right, Admiral Mullen?
    Admiral Mullen. We're looking at a big shot right now.
    Senator Graham. Do you understand you have one more shot 
back home? Do you understand that?
    Admiral Mullen. Yes, sir. Yes, sir.
    Senator Graham. About 55 percent of the American people in 
polls said that they did not support us staying in Afghanistan. 
What would you tell them as to why we should?
    Admiral Mullen. I'd say it is the epicenter of terrorism 
right now. It's very clear that in fact al Qaeda has diminished 
while it's living in Pakistan, and this is a Pakistan-
Afghanistan issue. They are by no means dead. It's a very 
serious threat, and that if we allow the Taliban to take 
control and run Afghanistan again I think the likelihood that 
they would return to that safe haven would be high. I'm very 
concerned about the deterioration, not just in Afghanistan, but 
also in Pakistan.
    Senator Graham. Do you believe we have the right strategy 
with the appropriate resources to win?
    Admiral Mullen. I believe we have the right strategy. The 
resource request will come in. What I've said, what I said 
earlier and will recommend in the future is this is how you 
properly resource this strategy.
    Senator Graham. But the point I'm trying to make to the 
American people, you're our top military commander.
    Admiral Mullen. Right.
    Senator Graham. You're our leader. You're telling us that 
we have a strategy you believe in. If we get it resourced the 
way that General McChrystal needs, you think we can win?
    Admiral Mullen. We can succeed, yes, sir.
    Senator Graham. Do our troops believe that?
    Admiral Mullen. Yes.
    Senator Graham. Now, the rules of engagement. I've been 
informed by some colleagues over there that if an insurgent is 
captured, under the ISAF rules of engagement, the NATO rules of 
engagement, they can be detained for 96 hours and then they 
have to be released?
    Admiral Mullen. Correct.
    Senator Graham. We're limited to tactical interrogation 
during that 96 hours.
    Admiral Mullen. Correct.
    Senator Graham. That basically is how you do it?
    Admiral Mullen. Correct.
    Senator Graham. Not much more.
    Has this resulted in a catch-and-release dynamic?
    Admiral Mullen. There is concern about that, although since 
you came back I've discussed this with the leadership. There is 
an option to certainly, inside ISAF, to stay longer. I'm much 
more--we get much more intelligence--and you could argue this 
both ways--much more intelligence from our special forces as a 
result of----
    Senator Graham. Who are not under these rules?
    Admiral Mullen. That's correct.
    Senator Graham. They're not under this rule.
    Admiral Mullen. Yet they----
    Senator Graham. They shouldn't be under this rule, should 
they?
    Admiral Mullen. However, this is General McChrystal, there 
is a strategic vulnerability by longer-term detention in terms 
of being able to identify who's been captured and who isn't 
with the Afghan people.
    Senator Graham. I agree with that.
    Mr. Chairman, I just want to wrap this up for the benefit 
of the committee.
    In Iraq we had 20,000-something Iraqis in Camp Bucca and 
Camp Cropper, is that right?
    Admiral Mullen. Yes, sir. Actually, we're going to close 
Camp Bucca here momentarily.
    Senator Graham. I would argue we put too many in jail, but 
it did help clear the battle space in Anbar to have some 
breathing room to get some of these folks out of Anbar so we 
could kind of do our job.
    The balance that we're trying to achieve is not to put 
everybody in Afghanistan in jail because that's 
counterproductive, but to make sure that the really bad ones 
don't come back after 96 hours.
    I look forward to working with you and General McChrystal, 
and I think you're doing a heck of a job, and there's no easy 
way forward, but there's two outcomes. You either win or you 
lose, and I think everybody wants to win. We can have 
differences on how to get there, but I believe we can win and 
we must.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Graham.
    Senator McCaskill.
    Senator McCaskill. Admiral, I am going to go back to a 
familiar subject for me, which is contracting. I know we're in 
Logistics Civilian Augmentation Program (LOGCAP) IV and that it 
was competed and that we have a number of companies working on 
it. Let me start with this. Can you today or for me at a later 
date tell me exactly how large is the contracting oversight on 
LOGCAP IV?
    Admiral Mullen. I'd have to get back to you with the 
details.
    [The information referred to follows:]

    The Logistics Civilian Augmentation Program (LOGCAP) Executive 
Director provides program oversight of LOGCAP. The Executive Director 
has Deputy Program Directors located in Iraq, Kuwait, and Afghanistan 
that are responsible for program oversight in each theater. Defense 
Contract Management Agency (DCMA) also has offices located in these 
regions that employ 329 personnel, which provide direct contract 
oversight to the LOGCAP IV contract. DCMA also has a contract 
management office in Houston, TX, that provides additional support to 
the LOGCAP contract. Additionally, supported units are required to 
provide Contracting Officer Representatives (CORs) to provide 
additional oversite on contract performance. U.S. Forces-Afghanistan 
recently released a Fragmentary Order providing guidance on COR 
training, assignment, and necessity for all subordinate units.

    <bullet>  Defense Contract Management Agency: Kuwait - 39; Iraq - 
178; Afghanistan - 112

    <bullet>  Contracting Officer's Representative: Kuwait - 22; Iraq - 
835 (1,061 Required); Afghanistan - 141 (264 Required)

    <bullet>  LOGCAP Support Unit: Kuwait - 6; Iraq - 27; Afghanistan - 
33

    <bullet>  Acquisition: Kuwait Task Orders - 5; Iraq Task Orders - 
10; Afghanistan Task Orders - 6; Other Contract Personnel - 10

    <bullet>  Program Office - 19

    Senator McCaskill. How about, who is the number one 
military commander responsible for oversight of LOGCAP IV? Who 
would be at the top of the organization chart?
    Admiral Mullen. Well, really in Afghanistan it would be 
General McChrystal. In who is the senior officer specifically 
assigned that responsibility, I don't know.
    Senator McCaskill. I think if possible, if we could get the 
information as to in theater who's the command staff on 
contract oversight on LOGCAP IV and in civilian who is.
    Admiral Mullen. Sure.
    [The information referred to follows:]

    General Ann E. Dunwoody, who is the Commanding General of the Army 
Material Command, is responsible for managing the Logistics Civilian 
Augmentation Program (LOGCAP) for the Army. The Defense Contract 
Management Agency (DCMA), who reports to the Office of the Secretary of 
Defense, Acquisition, Technology, and Logistics (OSD ATL), provides 
General Dunwoody with contractor oversight on the LOGCAP in their role 
as a Combat Support Agency for the Contingency Contracting 
Administration Support (CCAS) mission.
    The Army Sustainment Command Commander, Major General Yves J. 
Fontaine (Head of Contracting Activity), and his LOGCAP Executive 
Director, Lee Thompson, SES, provide program oversight. Mr. James 
Loehrl is the Director, Rock Island Contracting Center (Principle 
Assistant Responsible for Contracting). They have three Deputy Program 
Directors in Kuwait, Afghanistan, and Iraq that provide program 
oversight in their respective theaters. In Afghanistan, the senior 
person on the ground is Colonel Randy C. LeCompte and he reports 
directly to the LOGCAP Executive Director, Mr. Thompson. DCMA Houston 
is responsible for overall LOGCAP IV contract administration and 
oversight. DCMA Kuwait, Afghanistan, and Iraq are sub-delegated the 
responsibilities for transition and day-to-day contract oversight in 
theater.

    Senator McCaskill. What interaction are they having with 
this new Contracting Command?
    Admiral Mullen. I can only say, as a result obviously of 
some very difficult lessons from Iraq, we're applying them 
directly in Afghanistan. There is a great deal more focus on 
this and numbers of people who are assigned to make sure these 
contracts are not just let fairly, but executed as we want them 
to be.
    The details of exactly who's doing that and how much we 
have and what the proportion is, I'd have to get back to you.
    [The information referred to follows:]

    The Logistics Civilian Augmentation Program (LOGCAP) Executive 
Directorate was realigned under the Army Contracting Command (an Army 
Material Command subordinate) in October 2008. In April 2009, the 
LOGCAP Executive Directorate was attached to the Army Sustainment 
Command for administrative control. LOGCAP Acquisition is executed by 
the Rock Island Contracting Command, a subordinate organization of the 
Army Contracting Command.

    Senator McCaskill. Also, to the extent that you can today 
or for the record reassure us that you are being more 
aggressive perhaps than State has been in terms of the 
oversight of security personnel at your base camps. Clearly we 
had, after a lot of discussion about security contracts at the 
embassy in Kabul, an entire hearing on it in June in the 
subcommittee that I work on on contracting oversight. We had 
those pictures that--frankly, not only is it a matter of 
embarrassment for us in terms of the security of our embassy, 
but as you well know those pictures circulate quickly among our 
enemies, and it contributes to an image of America that doesn't 
help us in terms of fighting this war.
    Admiral Mullen. Certainly it's a priority for us in DOD to 
make sure that never happens. But I will also tell you, when I 
see an incident like that I start looking in my own house just 
to make sure I'm okay. We're doing that right now to make sure 
that that possibility doesn't exist.
    We have a great deal more focus on it. We look at the 
contractors who are there very frequently to make sure they're 
the right ones. It is a large number. In Afghanistan it's some 
71,000 right now. We don't want it to grow any further, any 
more than it needs to. Yet we are in many ways dependent on 
them.
    I will be happy to get back to you with more details on our 
review as a result of what happened with the State Department 
contractors, which has just been part of a prudent response as 
far as I'm concerned.
    [The information referred to follows:]

    U.S. Government provides appropriate oversight of, and 
accountability for, private security contractors (PSCs) working on its 
behalf overseas. The Departments of State and Defense have jointly 
coordinated oversight procedures, including the development of a 
Memorandum of Agreement in Iraq and government-wide regulations 
pursuant to congressional legislation. In Iraq, the Embassy and the 
military have developed joint procedures for movement coordination and 
serious incident reporting. Allegations of misuse of force or other 
criminal conduct are investigated, and if there is evidence of a crime, 
the U.S. Government coordinates with Host government authorities as 
well as U.S. law enforcement authorities, as appropriate. U.S. 
Government PSCs in Iraq and Afghanistan are now subject to host country 
jurisdiction and, under certain circumstances, if the host country is 
unable or unwilling to exercise it, U.S. jurisdiction. We have 
established better cooperation with host governments over the last 
year, by conducting joint investigations of incidents, sharing best 
practices, and integrating host government police into our protective 
procedures. The number of incidents is significantly lower now in Iraq 
as compared with pre-2007 levels, and has never been substantial in 
Afghanistan. The recent State Department incident has an ongoing review 
by the State Department and they have taken steps to improve 
management, oversight, and accountability. The Department of Defense 
maintains open and direct dialogue with State and will continue to 
incorporate lessons learned from this incident as appropriate. We 
recognize that challenges still remain, but we are diligently working 
to identify and address those challenges.

    Senator McCaskill. We have the highest percentage of 
contractors in a conflict in the history of our Nation right 
now. Never before have we been at this level. The interesting 
thing is looking at the difference between Iraq and Afghanistan 
in terms of the makeup of that contracting force. I would like 
you to try to put your finger on the difference, in that in 
Iraq the vast majority of people that were hired by our 
contractors were third party nationals. In Afghanistan, it's 
Afghanis.
    In fact, in March--and I don't know what that number is 
right now. But in March the number of Afghani contractors was 
equal to the number of our troops. It was about a 52,000 to a 
52,000. The vast majority of the contracting force in 
Afghanistan are Afghanis.
    Can you explain to me what the difference is there and why 
is it that Fluor and the contractors--and I think Fluor is the 
one that's gotten most of the contracting so far on LOGCAP IV. 
What is the difference there? Why are we using so many 
Afghanis? Is this our substitute for Sons of Iraq?
    Admiral Mullen. This is a very clear strategic shift to 
focus on and guide--and the number I saw at the end of June was 
52,000 out of 71,000. So it's about two-thirds are locals. 
Quite frankly, the strategic guidance there is invest in this 
country and invest in the people, and in that regard it does 
have the same kind of impact that Sons of Iraq does.
    Senator McCaskill. Are you asking that the contractors hire 
Afghanis?
    Admiral Mullen. I think the guidance is to do that where 
they have the capability. I couldn't tell you what the contract 
says in terms of their requirements. But clearly the results 
are exactly that.
    Senator McCaskill. We may take a more extensive look at 
this down the line in another location, but I would be very 
interested in knowing how this came about. If indeed this is 
part of the strategy, I think it's something that we need to be 
aware of as to how it's working, because if we're fighting 
Taliban, the thing that worries me about this, they're good, 
they're smart. I just want to make sure we're having enough 
clearance here.
    Admiral Mullen. Sure.
    Senator McCaskill. I mean, these people are coming into our 
bases. They're doing the food. They're constructing. We had bad 
things happen with electricity and showers in Iraq. I'm glad 
that we are using Afghanis, but it does concern me on the 
security end that we're taking the steps necessary to make sure 
that we inadvertently are not inviting some of the enemy up 
close and personal.
    Admiral Mullen. I certainly understand your concern and 
I've heard of no examples of that. I've actually discussed this 
when I've been in Afghanistan with the leadership there, the 
military leadership, about how we assign or how we determine 
this. The feedback I got was again it's going to be Afghani 
first if they have the skills to do this, and that's where the 
contractors are headed.
    Certainly those who are in charge are aware of what the 
possible threat could be. I know there is a vetting process 
that they certainly go through to hire, and I'm not any more 
versed in that right now.
    Senator McCaskill. I'd like to be more comfortable about 
that vetting process. I'm a little cynical because I saw the 
kind of lack of oversight that occurred in Iraq. I trust that 
you're trying.
    No one has talked about the recent allegations about the 
Pakistani army and what's going on in the Swat region as it 
relates to extrajudicial killings. My time is up, so I will 
leave that question to the next round or perhaps another 
member. But I'm interested in your take on that.
    [The information referred to follows:]

    The Department treats vetting contractors seriously as a matter of 
force protection and a critical responsibility of commanders at all 
levels. While not a part of the contracting pre-award process, 
contractor vetting is integral to Central Command (CENTCOM) force 
protection policies and supported by the Office of the Secretary of 
Defense policies and significant resources. These processes, originally 
implemented and refined in Operation Iraqi Freedom, are in place 
throughout the CENTCOM Area of Responsibility (AOR). In the CENTCOM 
AOR, access to U.S.-controlled bases has evolved from the use of ``dumb 
badges'' for local national and third-country nationals to a more 
robust base access program that uses biometric recognition and smart 
card technology. Procedures meet the dictates of Homeland Security 
Presidential Directive 12 which established broad requirements and 
limitations for identity verification of persons seeking access to U.S. 
Federal facilities.
    In CENTCOM, all personnel entering U.S.-controlled installations 
and facilities are subject to screening. This screening relies on 
biometrics for contractor vetting using either Biometric Identification 
System for Access (BISA) or Biometric Automated Toolset (BAT). BAT is 
used in Afghanistan; BISA is used elsewhere in CENTCOM. Both are part 
of the Department of Defense's Tactical Biometric System program. The 
biometric program includes detailed processes for enrollment of 
contractors, vetting, adjudication, card issue, verification for base 
access and visitor control. This includes individual screening through 
the Biometric Fusion Center in Clarksburg, WV, to verify the identities 
and background of contractors in close support of U.S. forces. In 
response to a recent Joint Operational Needs Statement submitted by 
U.S. Force-Afghanistan's Biometric Task Force and fully endorsed by 
CENTCOM and the Joint Staff, the Department is in the process of 
expanding these capabilities in Afghanistan to maximize our ability to 
protect our troops from harm at the hands of contractors or anyone 
else.

    Chairman Levin. Thank you, Senator McCaskill.
    Senator Collins.
    Senator Collins. Thank you.
    Admiral Mullen. Hi, Senator Collins.
    Senator Collins. How are you?
    Admiral Mullen. Good.
    Senator Collins. Good.
    Let me begin by thanking you for your extraordinary 
service. We are so fortunate to have you at the helm. I just 
want to echo the praise of my colleagues and tell you that I 
look forward to voting to reconfirm you in the important 
position that you hold.
    Admiral Mullen. Thank you, ma'am.
    Senator Collins. Counterinsurgency strategy requires a 
unity of the military and the civilian effort. We have heard 
and will continue to hear a great deal of discussion over the 
critical issue of whether or not we should send more combat 
troops to Afghanistan. But there has been relatively little 
discussion of the civilian side of the counterinsurgency 
effort, and that really concerns me.
    When I visited Camp Leatherneck last month with my 
colleagues, I had lunch with a group of marines that had ties 
to my home State and they told me that they cleared the Taliban 
at great cost, incurring casualties, going village by village, 
and it was hard work, but they were successful, and they were 
proud of their success. But they told me that their frustration 
is after they cleared the Taliban out that there's no follow-
up, that the civilian capacity does not come in to build the 
institutions that everyone agrees are essential to providing an 
alternative to the Taliban.
    That has led me to conclude that we're not focusing enough 
on the civilian side. I left Afghanistan uncertain about the 
road ahead in terms of more combat troops, but I am certain 
that we need a surge in the Afghan army and I am certain that 
we need a civilian surge.
    When I was in Helmand Province I learned that we had 
thousands of marines, like 10,000 marines; we only had like 800 
Afghan troops, which infuriated me, and we only had dozens of 
American civilians. Perhaps there were more NATO civilians.
    What should we be doing to surge the civilian side? Do you 
believe that we need to place more emphasis on a civilian 
surge?
    Admiral Mullen. There's been a great deal of emphasis 
placed by all of us, but in particular Secretary Clinton and 
Ambassador Holbrooke, Deputy Secretary Lew, et cetera. So there 
is a great deal of focus on this. As I look at the numbers, it 
is a matter of the machine just can't turn them out very 
quickly. I share your concern, although I was with those same 
marines a month before and I was actually taken back by the 
civilians who rolled into those villages literally the next 
day. So it's very spotty. Some places we can do it and some 
places we can't.
    But we have to have that. What ends up happening is if the 
civilians aren't there, we do it. In those same villages, I'm 
guessing the marines are now doing that until they're relieved. 
That's just not going to change, and that's what we did in 
Iraq. We're in some version of that right now. I think they 
will get there more quickly than we did in Iraq.
    The President's strategy was March 27. General McChrystal 
got there June 13. One of the challenges we have right now is 
we're just getting the pieces in place of the President's 
strategy. Ambassador Holbrooke has worked across an array of 
requirements to try to get the rest of the comprehensive piece 
of this strategy going, but it's just starting to get laid in.
    I think we won't know where we are with that, quite 
frankly, probably until the spring time, sort of that first 
burst.
    Senator Collins. But it's complicated also by the rampant 
corruption in Afghanistan. If we're going to have an effort 
after the marines have cleared a village to prevent the Taliban 
from returning, which was the frustration I heard, if we're 
going to have that alternative to Taliban rule, isn't our task 
made much more difficult by the widespread corruption and the 
shadow over the legitimacy of the recent presidential election?
    Admiral Mullen. Yes, ma'am, there's no question. The Afghan 
Government needs to at some point in time appear to actually 
have some legitimacy in the eyes of its people. The core issue 
in that regard is the corruption piece. In many ways it's been 
a way of life there for some time and that has to fundamentally 
change. That threat is every bit the threat that the Taliban 
is.
    Senator Collins. Exactly, and we need to treat it that way.
    Admiral Mullen. Yes, ma'am.
    Senator Collins. Finally, Admiral Mullen, I'm going to 
submit for the record a letter that really disturbs me, that I 
received from John Bernard, who is a retired marine whose son 
was killed in Afghanistan. His son was the marine whose picture 
became so controversial. I am so grateful to Secretary Gates 
and to you and others who tried to convince, unsuccessfully, 
the AP to not publish that horrible image, which will be the 
last image that this family has of their beloved son.
    But Mr. Bernard, who, as I said, is a retired marine 
himself, wrote me just a few weeks before his son was killed in 
Afghanistan. He expressed serious concerns about the rules of 
engagement. He told me that he felt it put his son and others 
needlessly at greater risk and that in our commendable and very 
American attempt to prevent civilian casualties, that we were 
placing our troops at far greater risk.
    I'm going to send you the letter so that you can read it. I 
promised Mr. Bernard at his son's funeral that I would do so. I 
hope that you and General McChrystal will look seriously at the 
concerns he raises about the rules of engagement. I can't tell 
you how tragic this was, to have received this letter and then 
what this father feared most indeed happened just a few weeks 
later. I would very much appreciate your reading his letter.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Admiral Mullen. If I may, ma'am, I thought what AP did on 
that was unconscionable to that family.
    Senator Collins. I agree.
    Admiral Mullen. The issue of rules of engagement is one 
obviously we all take extraordinarily seriously. We were in my 
view putting ourselves in a very bad strategic position in 
terms of being able to succeed with the number of civilians 
that we were killing. I don't think we really understood that. 
I think it took too many incidents for us to get that right.
    General McChrystal knows that. We also believe that getting 
this right in the long run will actually result in fewer 
casualties. That doesn't mean that risk isn't up higher now, 
given the challenges that we have and the direction that 
General McChrystal has laid out. So I understand.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Thank you very much for being here. I know it's a 
confirmation hearing, so let me just make this quick comment on 
that. I think you have done a very good job. I'm looking 
forward to your next 2 years. I'm looking forward to supporting 
you. That's off the table, now we move on to the other issues.
    Senator Collins brought up an interesting point. I had an 
interesting call last night from my father-in-law, who's a 
retired Army colonel who served in Vietnam, and actually he had 
the exact same concern. So as you receive that letter and if 
you do respond in some formal way, I would like to be included 
on that if I could. His comment was interesting; he, 20-plus 
years in the military, but his concern was, we're engaged or 
we're not. We're not halfway in. We have to make a decision on 
what we're going to do and how we're going to do it. I'd be 
very interested if you do a formal response.
    Which leads me to a bigger issue. I have gone over to 
Afghanistan, I've gone over to Pakistan. It was a very eye-
opening experience, to say the least. Back earlier in the 
spring this year, General Petraeus was here and I asked a 
specific question. I know you said in your opening comments you 
can't answer ratios, but I want to put this comment on the line 
and then maybe your response in general.
    That is, based on his own ratios of 20 counterinsurgents 
per 1,000 population--and Iraq it was much higher toward the 
end; it was in the 24, 25 range, give or take, per 1,000. If 
you use that ratio, based on the populations from our own data 
that we have on the population, even with our surge that we 
have now, with the goal of Afghan troops and police and all the 
other security personnel, we're going to be short under that 
ratio 350,000 if we use that ratio.
    That was General Petraeus' ratio. The concern I have is, 
Iraq is a different environment geographically and otherwise. 
Afghanistan is much different, harder, as you have well 
defined. So how do we get there? That is a huge number.
    Then the second part of that question is, what are our 
allies going to do? What is their role going to be? Because 
what I keep hearing and seeing is a diminishment of their role 
and responsibility, which concerns me, especially from Alaska 
we've lost 12 more troops in the last 90 days and dozens of 
casualties. I'd be interested in first those two questions.
    Admiral Mullen. Let me take the allies first and I'll come 
back to the ratio if that's okay.
    Senator Begich. Yes.
    Admiral Mullen. Actually, the allies over the last year and 
a half or so have actually increased their numbers fairly 
substantially. Now, compared to the numbers that we have--and I 
just think I'm enough of a realist to believe that it's not 
going to increase. We're not going to get tens of thousands of 
more troops, should we have a request for them, from our 
allies.
    But they have some quality capability. They actually, 
several of the NATO countries, put more forces in to support 
security for the elections. There are 41 countries that have 
military or civilian capability in Afghanistan supporting this 
mission.
    Senator Begich. Can I interrupt you for just a second. Have 
they increased significantly the combat front-line folks? 
That's my point.
    Admiral Mullen. No, but they have actually put some. The 
forces, the security forces for the elections, were all combat 
forces.
    Then there's the question of will they leave them there 
after the elections. I don't know the answer to that. But 
they've actually over the last couple of years put in a 
significant additional number from their perspective. I think 
that's important.
    As this resource request comes in, I think NATO is going to 
have to also deal with it as well and look at what they can do. 
So the training piece, which they do pretty well, both police 
and army, may be an area that they can add additional 
capability; the civilian piece as well.
    We would look to that. They've gotten better. From my point 
of view, they're more committed. But we're never going to see 
an extraordinary addition of resources from our allies.
    Second on the ratio piece, the 20 to 1,000. I hope that's 
50 to 1. I used to be able to do that kind of math. But 
basically, the number that we focus on is about 50 to 1. First 
of all, it's a guideline. If you do the math, clearly with the 
forces we have there right now we're not close to that.
    I think General McChrystal would sit here and tell you, his 
biggest concern is east and south. That doesn't mean we don't 
have challenges in the north and the northwest. So we need to 
be careful with this. We use it as a guideline, not as the 
absolute answer that, hey, if you're not at 50 to 1 you don't 
have a chance. We just don't believe that.
    But clearly we need to keep that in mind as we move forward 
and look at where the threat is and see what the ratios are 
there roughly, which we do.
    So as we look at his request that will come in and ask for 
resources to support his view of where he stands, certainly 
we'll have that in mind. But we're not there in the classic 
sense right now. We're not there, we're not close.
    Senator Begich. But I would say we're not there even in 
those high-intensity areas.
    Admiral Mullen. Correct.
    Senator Begich. That's my concern.
    Let me follow up on a couple other things. The way I see 
this, I'm anxious to hear General McChrystal's recommendations, 
but this is a two-part. It's civilian, it's military. It's a 
combination. Will his recommendations to you look at the whole 
spectrum or just the combat component, with a little bit of 
notation in regards to the civilian component because so much 
of the State Department participates in that? How will that 
approach come to you?
    Admiral Mullen. I think the second way, how you describe 
it. He will address the military side. In our review, certainly 
at the Pentagon as well as through the administration, we're 
very specifically looking at the broader requirement as well.
    Senator Begich. So you'll look at the bigger picture.
    Admiral Mullen. The State Department is. But certainly the 
administration, the White House, is looking at the integrated 
view of all the requirements.
    Senator Begich. Last because my time is up, I know you said 
in short order. How do you define that? The time that he'll 
give those recommendations?
    Admiral Mullen. I said that so I wouldn't have to define 
it.
    Senator Begich. I know. That's why I'm asking. I noticed. I 
noted that question was not specifically answered by each 
person. 2 weeks?
    Admiral Mullen. His submission, I think in the next couple 
of weeks.
    Senator Begich. The next couple of weeks to you. Then from 
there, you and the President----
    Admiral Mullen. We'll go through the same process, 
Secretary Gates and I. This is a process we've used over the 
last several years, where I will then review it with the 
chiefs, and we'll review it with Petraeus. Petraeus will 
endorse it, first of all, with his views, bring it in to the 
chiefs. We will essentially look at it, and we'll then take it 
to Secretary Gates, and then he'll make a decision and we'll 
move it across the river at that time.
    Senator Begich. Very good.
    Thank you very much. My time is up.
    Chairman Levin. Thank you, Senator Begich.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Admiral Mullen, I, too, want to thank you for your 
commitment and your service to our country, and also the 
service of your family and the commitment of your family. This 
is difficult times that we're in. You're gone from home a lot, 
and without the strong support of your family we wouldn't have 
the commitment from you. So we thank both of you there.
    I want to get to Afghanistan, but first I want to ask a 
couple of questions about Iraq. We obviously just celebrated 
the eighth anniversary of September 11. We're getting close to 
the eighth anniversary year of going into Iraq. These are 
difficult times still in Iraq. It's pretty obvious that is the 
case, even though we're downsizing.
    First of all, is downsizing on track? Do you see any 
potential changes in the schedule of reduction in forces?
    Admiral Mullen. No, sir, I think we are basically on track. 
We're very focused on the elections in January to provide 
support for the Iraqi security forces, between now and then. We 
have had violent incidents. All violence is not gone. Al Qaeda 
is not gone.
    One of the things that I do worry about is making sure that 
I spend enough of my time that we don't lose focus there, 
because we have come so far, although I think most of the 
effort between now and the end of 2011 is really political.
    Senator Chambliss. We have been training security police 
and military personnel in Iraq basically since we got there. I 
remember visiting with General Petraeus early on in that 
conflict, where he was in charge of that training. We're now 
seeing that spike in violence that you talked about with the 
downsizing of American troops.
    Were the Iraqi military as well as security police ready to 
assume the challenge that was given to them when we pulled out 
of the major areas?
    Admiral Mullen. By and large, yes, sir. The attacks of a 
couple weeks ago in Baghdad certainly got everybody's 
attention. To his credit, I think Prime Minister Nouri al-
Maliki reacted very strongly. So did the security forces. They 
saw that as a wakeup call. They've adjusted very quickly, and 
what I get when I talk to General Odierno specifically and 
General Petraeus about that, they're very satisfied with the 
adjustment.
    Senator Chambliss. Moving to Afghanistan, in that same 
vein, you indicated that it'll be another 2 to 3 years before 
you think that the Afghan security police and their military 
are capable of providing any kind of meaningful defense. How do 
you see the difference from the training in Iraq and the 
training in Afghanistan?
    Admiral Mullen. I think it's basically focused in a way 
that we know what they need to learn. It is a huge challenge 
because of the literacy rate with the Afghan soldiers and 
police. It's at the single digit level, maybe 9 or 10 percent.
    Yet we have a program with the army, where we put that in 
place to increase their literacy level. We haven't done that 
with the police. We're just starting to do that with the police 
right now. We know that's going to be a requirement. I have 
much more confidence in our ability to train and get the army 
to the level that they need to get and execute operations, 
which they're doing right now even at the 90,000 that exists 
right now. I'm much more concerned about the police, as I was 
in Iraq at about the same point in time, where we never thought 
we'd make it with the police there as well, from the ministry 
to out in the field. In about 2007, which was a couple years 
after General Petraeus had started that work, it finally 
started to turn.
    That's why I say 2 to 3 years. But I don't think from a 
training standpoint we're done. If I were to look at Iraq, that 
was 2004. You are talking about it's now 2009. So there will be 
a longer term requirement. Yet these forces that we're 
generating, the army and the police, they're in the fight 
pretty quickly. We don't have to wait until then. It's just 
that I think it's going to be about that length of time before 
they'll really be able to take a grip.
    I worry about as violence increases there--our lesson in 
Iraq was the police and the security forces got worse, just 
because it was really violent. My expectation is we're probably 
going to have to go through some of that in Afghanistan as 
well.
    Senator Chambliss. You preempted my next question relative 
to the literacy rate. As you and I discussed in my office a 
couple weeks ago, what I understood the literacy rate to be was 
about 30 percent, and both you and General Petraeus have kind 
of deflated me there. That was bad enough, but you just 
indicated about a 9 to 10 percent in the military.
    Admiral Mullen. That's what I understand it to be. I think 
that is probably close.
    Senator Chambliss. Whatever it is, it's very low, which 
means that at some point in time when we think we have achieved 
military success, we still have to look at the other side. When 
we leave, there has to be some kind of economic foundation left 
there for the Afghan people to be able to survive. With a 
literacy rate of somewhere of, let's assume it's in teens or 
assume it's 20 percent, that means 80 percent of the people in 
that country can't read and write.
    What do we do? How do we leave that country in a state 
nonmilitarily that they can survive?
    Admiral Mullen. I think first of all they have to have 
security. That's the necessary condition. They have to have 
enough good governance to be able to survive. That includes 
things like rule of law and institutions that provide things 
for them that just aren't there now, goods and services. But it 
also has to have some level of economic underpinning. I don't 
underestimate the challenge there as well. It's 1 of the 5 or 
10 poorest countries in the world.
    There has to be some economic improvement. Not unlike Iraq 
in a sense or just about any insurgency or counterinsurgency, 
it's a three-legged stool. You have to be able to do security. 
You have to be able to do development, create jobs, as well as 
a level of governance.
    Senator Chambliss. My time is up, but we talked with 
General McChrystal last time he was here about the National 
Guard from various parts of the country going into agricultural 
areas and providing, rather than military security cover, 
agricultural training services. Is that program still being 
successful?
    Admiral Mullen. It is. I can't remember how many brigades 
now or how many States, but it's like six or seven States that 
continue to do this, to provide agricultural expertise out of 
the Guard. It's had a big impact and we're going to continue 
that.
    Senator Chambliss. Thank you very much, Admiral.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Aloha, Admiral Mullen.
    Admiral Mullen. Aloha, Senator.
    Senator Akaka. I would want to thank you very much for your 
outstanding and dedicated service to our Nation over these 
years. You have shown outstanding leadership as the Chairman of 
the Joint Chiefs. I also want to congratulate you on your 
nomination to continue to serve in this position.
    Admiral Mullen. Thank you.
    Senator Akaka. I also want to add a welcome to your lovely 
wife Deborah to the hearing.
    Admiral Mullen. Thank you, Senator.
    Senator Akaka. Admiral, I'm interested in the Afghanistan 
momentum. We have been fighting in Afghanistan now for about 8 
years. We are facing a more sophisticated and resilient 
insurgency than any time since 2001. My question to you is what 
could be the long-term effects if we fail to quickly regain the 
initiative and reverse the momentum in Afghanistan?
    Admiral Mullen. I worry a great deal about essentially it 
becoming a failed state and a safe haven and, while not 
immediately, maybe the mid-term effects that that has on 
Pakistan. The President's strategy--and I strongly agree with 
this--it's a regional strategy. It involves both those 
countries. Even though they're both sovereign countries, they 
have links that go back throughout the ages.
    There are other countries in the region that I think need 
to be paying a lot of attention to this as well, India being a 
specific one. It's very difficult to predict here. Actually, I 
think what has happened in Afghanistan, as difficult as it is, 
has contributed to the diminishment of al Qaeda even in 
Pakistan. So it is the combination of efforts in both countries 
I think that is so important to get at what is the core goal of 
the President's strategy, which is al Qaeda.
    I don't know for sure, but I worry a great deal that if the 
Taliban retake Afghanistan that in fact clearly the option is 
there to recreate that safe haven where they were pretty 
comfortable. The long-term effects of that I think could be 
pretty disastrous for us and our national interests, assuming 
al Qaeda is somehow able to both plan and execute attacks, 
which they are planning to do today.
    Senator Akaka. As you mentioned, Pakistan begins to play 
into our strategy. The administration's goal in Afghanistan and 
Pakistan is--and let me quote--``disrupt, dismantle, and defeat 
al Qaeda in Pakistan and Afghanistan and to prevent their 
return to either country in the future.'' Admiral, assuming we 
are able to defeat al Qaeda, how would you propose that we 
accomplish the last part of the goal of preventing their return 
to Afghanistan or Pakistan?
    Admiral Mullen. I think if the country of Afghanistan has a 
strong enough government and a strong enough security force, 
they can prevent them from coming back. Clearly it doesn't 
include the Taliban under their current leadership.
    The ``defeat al Qaeda'' piece, and it does focus on al 
Qaeda, but these terrorists and extremists, particularly in 
recent years, have become much more linked. So yes, it's al 
Qaeda, but it's also the Taliban. It's also Lashkar-e-Taiba 
(LET), it's also Tehrik-e-Taliban Pakistan (TTP), it's Jama'at-
ud-Da'wah (JUD), it's Jaish-e-Mohammed (JEM). All of them have 
the same kind of outlook. Now, each one of them does not 
threaten us directly as a country, but the totality of this 
epicenter there in terms of the terrorists who are there is one 
that I am extremely concerned about, led by al Qaeda.
    Senator Akaka. Admiral, our military continues to shoulder 
a huge burden in the Middle East and South Central Asia. It 
seems the number of deployed forces in Afghanistan will remain 
high and there are reports that there might be a request for 
additional troops. That concerns me about military readiness.
    If we continue our current pace of operations, how would 
you assess our readiness to counter future threats abroad?
    Admiral Mullen. At the current levels, which includes the 
plan to draw down in Iraq, we actually will start to increase 
dwell time, which is nominally for the ground forces, 
particularly the Army, 1 to 1. Actually, the Marine Corps, 
because we've built three additional battalions, they're coming 
out of Iraq now, the Marine Corps deployment level ratio--I'm 
sorry--dwell time is out to about 1 to 1.5 for its main units. 
There are some units whose ratio is 1 to 1.
    So we'll be able to increase that dwell time, and that will 
happen over the period of about 2 or 3 years with the Army as 
well. General Casey says about 2011 or 2012, assuming we come 
out of Iraq and our levels in Afghanistan don't go too high, 
that he also would be able to increase that dwell. That buys us 
some recuperation time, which we need for our troops and our 
families, for our gear as well. But it also allows us to start 
training for other missions.
    We've clearly accepted additional risk globally focusing on 
Iraq and Afghanistan. That is how we would move forward here.
    I would be first and foremost concerned about just the 
recuperation time for our troops and families, while at the 
same time getting ready for those additional possibilities.
    Senator Akaka. Admiral, I applaud your continued efforts to 
be a strong advocate for our wounded warriors. During a recent 
speech you stated: ``Time is of the essence when it comes to 
finding better treatments for traumatic brain injuries.'' 
Admiral, what more can be done to better treat traumatic brain 
injuries?
    Admiral Mullen. I spend a fair amount of time with my wife 
Deborah visiting what I would call centers of excellence, 
certainly in the Veterans Administration (VA) world. I was 
recently up in Boston and I was struck at the advancements that 
are being made there by the Boston VA and their relationships 
in the community with Harvard and Boston University and other 
institutions, educational and research institutions, which are 
contributing. I know Secretary Eric Shinseki has this as a 
priority as well.
    I think that we, that DOD and the VA, must work as hard as 
we can together to surface and then fund these things. Some of 
what I saw there were studies that were going on for 3 or 4 
years that actually had some good information. So what are we 
doing with them? We have to know what's going on and then 
execute, and basically take it and do something with it. I just 
believe we're in the beginning stages of this, 8 years into war 
notwithstanding, that we're really just starting to get to a 
focus across the full spectrum that addresses these kinds of 
issues.
    I use the VA hospital as an example. I think we need to do 
this throughout the country.
    Senator Akaka. Thank you very much, Admiral.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral, thank you for your great service to our country. I 
do want to add my support for your reconfirmation. Thank you, 
your wife and family for their service as well. There are some 
tough things that we're involved with. Of course, you're in the 
middle of it all. I know much of the focus today has been on 
Afghanistan, as it rightly should be. I have one question with 
regard to that, but I'd like to ask a couple of other questions 
if I might.
    I, like everybody else in this country, want to see us 
succeed in Afghanistan and be able to put together a strategy 
that would allow that to happen. To me, that I think means 
preventing terrorism organizations from being able to create 
safe havens in that country and also making sure that we have a 
well-trained Afghan army and police force that can maintain 
security and take over more of the fight.
    That's why I'm a little bit concerned about, last Tuesday 
NBC News aired a story from a reporter that was embedded with a 
U.S. Army unit on patrol in Afghanistan and one particular 
aspect of that report caught my attention. There was a report 
that highlighted how the U.S. forces are not allowed to search 
private dwellings due to cultural sensitivities. Afghan 
soldiers search Afghan residences. Yet the report also noted 
that the Afghan army soldiers are reluctant to support the 
coalition in the more dangerous aspects of the mission. It went 
on to say that, while the U.S. soldiers searched a wooded area, 
this NBC report stated: ``It's so risky, bombs easily hidden in 
this brush, Afghan soldiers refused to go in.'' That's what I 
found troubling about that report.
    I guess my question is, is this report an isolated case or 
does the Afghanistan National Army often refuse to perform 
dangerous missions?
    Admiral Mullen. I'm not aware that they do, and their 
reputation is such that they're good fighters, and that our 
relationship with them is very strong. You're speaking to the 
directive or direction that actually I think General David 
McKiernan put out before General McChrystal got there, and I 
know McChrystal concurs with this, is we just were doing 
ourselves a lot of damage by entering those homes ourselves and 
strategically we were really hurting ourselves.
    But I am not aware of a rampant kind of incidents that you 
just described where the Afghan army isn't in the fight. In 
fact, and it's not an army story, but it's a police story, I 
think in the last couple of months the Afghan police have had 
upwards of 150 plus of their officers killed. They have also 
sacrificed greatly. All the problems that we do have with the 
police, and they are plenty, we've had an extraordinary number 
of sacrifices there as well.
    But I certainly haven't gotten that kind of feedback. I can 
check and see if it's different.
    Senator Thune. It was a news report, but I guess it gets to 
the broader question of as we place more and more burden on the 
Afghan army and the Afghan police to perform, do we have a 
level of confidence that they will perform up to our 
expectations and as we begin to at some point hopefully hand 
off, that they continue to provide security.
    Admiral Mullen. All the feedback I've gotten is yes. That 
doesn't mean we don't have challenges. I hope the report is 
only isolated, but I think the report speaks to the complexity 
of the challenge of both training and executing and getting 
them into the fight. It is an enormously complex environment, 
mission, et cetera. But I'm just not aware of any kind of 
extensive incidents like that that you described.
    Senator Thune. To shift gears for just a minute, there was 
a September 10, 2009, article in The New York Times. The 
headline read that ``United States Says Iran Could Expedite 
Nuclear Bomb,'' and that American intelligence agencies have 
concluded that Iran has created enough nuclear fuel to make a 
``rapid sprint'' for a nuclear weapon.
    I know that there are conflicting views about when that 
capability will exist and I guess I'm interested in your 
thoughts about how quickly Iran could develop a nuclear weapon 
if they decide to make a rapid sprint to that end.
    Admiral Mullen. Those time frames generally run for me 1 to 
3 years. What you're talking about, what that article spoke to, 
was what I call a breakout capability. In other words, they 
develop enough of the technology and then they make a decision, 
the Supreme Leader makes a decision, to go. From there it takes 
a period of time. As you indicated and I think the article 
indicated, there are various views of what that takes.
    Everybody is sort of in that ballpark, 1 to 3 years. So 
it's not like it's a long way off should they decide to do 
that. My personal belief is that the Iranians are on a path, 
they want to develop nuclear weapons, and I think that would be 
an incredibly destabilizing outcome for a part of the world 
that is already pretty unstable.
    Senator Thune. You had stated in your answers to some of 
the advance questions that, with regard to current negotiations 
over the follow-on Strategic Arms Reduction Treaty (START), 
that the proposed range of 500 to 1,100 strategic delivery 
vehicles and a limit of 1,500 to 1,675 warheads would be 
sufficient to maintain U.S. strategic deterrence. I guess my 
question has to do more with the delivery vehicles, but do you 
really mean to suggest that the United States would be able to 
maintain the strategic deterrent, the nuclear umbrella to 
allies, at a level of 500 strategic delivery vehicles?
    Admiral Mullen. I'm very comfortable at 500 to 1,100. It is 
a range. That's where the negotiations are. At some level 
coming down from 1,100, I get pretty uncomfortable with our 
ability to do that. That's really for the negotiators to figure 
out and obviously what our strategic deterrent will be.
    What I am equally concerned about is the need for us as a 
country to invest in this capability, in the industry for the 
future, which has been underinvested in or not invested in for 
a significant period of time, so that we can have a deterrent 
force that is technically current and reliable. So it is that 
range. At that range on the high end, I'm very comfortable. On 
the low end I'm pretty uncomfortable.
    Senator Thune. Do you know, has DOD done analysis at the 
low end?
    Admiral Mullen. Yes, sir, we have.
    Senator Thune. Is that something that would be available to 
Congress?
    Admiral Mullen. I'm not sure. I'd have to check. I mean, 
pretty much anything is if you want. It's been a few weeks. I'd 
have to go back and look at it to see. We're right--``we,'' our 
country, is right in the midst, the administration is right in 
the middle of negotiating to get to a START follow-on by the 
end of this year.
    Senator Thune. Right. Obviously, that requires significant 
force structure changes.
    Admiral Mullen. Yes, sir, I understand that.
    Senator Thune. Submarines, bombers, Intercontinental 
Ballistic Missiles, something would have to be eliminated. I 
just wondered if the Department's carefully studied that.
    Admiral Mullen. We actually know where the break points 
are. Analytically, we've looked at this and so we know where 
tough decisions have to be made as you come down and decisions 
about is it a triad or is it a dyad and what would it take, if 
we sustained a triad even at lower levels, which could be very 
expensive. Actually, I'm very comfortable with the level of 
analysis that we've done with respect to that.
    Senator Thune. I'd be interested in following up with you 
if that's something that would be available for us to look at.
    Thank you, Admiral.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Thank you, Senator Thune.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Admiral Mullen, thank you so much for being here. I thank 
you for your work, for your service. To your wife Deborah and 
to your sons, I thank you so much for your family sacrifices. 
It means a lot, I know, and I do think that you are certainly 
well qualified for a second term. Thank you for doing that.
    I wanted to ask you a question about Afghanistan. I think 
that succeeding in Afghanistan requires partnership built upon 
the strong relationships that we have with the Afghan 
Government, national security forces, and above all the local 
populace. It's essential that our strategy in Afghanistan is 
centered on protecting the Afghan people from the Taliban, 
which we talked about, enabling the Afghan governance and 
reconstruction, and enabling the capacity of the Afghan 
national security forces. As Secretary Gates has indicated, we 
must ensure that Afghanistan has the appropriate intelligence, 
law enforcement, and internal security capabilities to sustain 
the long-term opposition against the Taliban.
    Our troops and resources in Afghanistan must be used to 
build trust with the Afghans, move to the next phase of 
counterinsurgency tactics, and enable the Afghan Government to 
conduct development and reconstruction operations. Our U.S. 
troops have to be perceived by the Afghans not as the problem, 
but rather as part of the solution.
    Has the Department begun discussing the resourcing effort 
within the special operations community to execute the 
President's Afghanistan strategy, specifically the theater 
special operations forces needed to train the Afghan National 
Army and Police and the strategic special operations forces 
needed to conduct the combat operations under the domain of the 
Joint Special Operations Command (JSOC)?
    Admiral Mullen. We think that clearly the Afghan special 
forces are a very capable group or part of the Afghan military 
and so there's great emphasis there. As we move forward I think 
in the strategy, General McChrystal's review of the President's 
strategy as he took leadership, took command there, the 
priority to focus on the Afghan people and also train and equip 
the Afghan forces writ large--special forces, army, as well as 
police--is a top priority.
    He hasn't submitted a request yet to say, given this, these 
are the forces that I need. But I'm confident that inside that, 
the totality of that request, will be embedded a request for a 
certain amount of special forces to get at exactly the issue 
that you're talking about. That will come in great part out of 
JSOC, among others, and out of Tampa and the totality of our 
special forces, who are as pressed as any other part of our 
military, quite frankly, and are so exceptional in what they 
do.
    So it will be, I believe as I look at it right now, a very 
important part embedded in the fullness of the 
counterinsurgency approach, because these forces are. I'm 
confident that request will come in. We just don't have it yet.
    Senator Hagan. Let me ask you a little bit about Pakistan. 
I believe that the stability of Afghanistan is dependent upon 
the stability of Pakistan, and I believe that the Pakistani 
Government's beginning to recognize that the Pashtun insurgency 
in the Federally Administered Tribal Areas (FATA) is a threat 
to Pakistan's sovereignty. We need to enable the Pakistan army 
and the Frontier Corps with the capacity and capability to 
conduct sustainable direct action missions against the more 
dangerous elements of the Pakistani Taliban and al Qaeda in 
Waziristan. Unlike the Swat region, Waziristan is populous, 
mountainous, and remote, characteristics that are not conducive 
for conventionally trained Pakistani army.
    We also need to work with the Pakistan Government and 
military to deny the safe havens for the Afghan Taliban's high 
command, currently based out of Quetta in Pakistan's 
Baluchistan Province.
    Though General McChrystal's assessment deals with our civil 
affairs strategy in Afghanistan, can you provide an update on 
the Department's strategy along the Afghan-Pakistan border? Of 
particular note, it's interesting to me since it's the 82nd 
Airborne out of Fort Bragg that's currently based in Regional 
Command (RC)-East, and Major General Curtis Scaparotti is the 
regional commander in RC-East.
    Admiral Mullen. There's been a lot that has changed in the 
last year in Pakistan with what the Pakistani military and the 
Frontier Corps have achieved. I think it's important to 
recognize that, because a year or 2 ago there were many people 
who were very skeptical that they would do anything. They've 
had a big impact. It hasn't been perfect.
    We are there to support them where they are asking for our 
support. That said, it's only going to go as fast as they want 
it to go. I've been there I think 13 times. It's very clear to 
me that they very much appreciate the support, but it's going 
to be at their pace, even though many of us would like to see 
it happen more quickly.
    He has a two-front threat. The Pakistani military also, 
they consider their principal threat, their existential threat, 
to be India, not these extremists. They are increasingly 
concerned about the extremists, which is why they've addressed 
it. He's started to train his forces in counterinsurgency, 
which a year ago or 2 years ago they didn't do much of. He's 
rotating them, and he's had some pretty significant positive 
impacts on it.
    In addition to the Quetta shura, I am as concerned about 
the Haqqani network, which is north of there and which is sort 
of the centroid for feeding Afghan Taliban in and out of 
Afghanistan killing our people and killing Afghan citizens. 
It's still an extraordinarily dangerous border. I think it will 
be for the foreseeable future. We've actually had success in 
diminishing al Qaeda leadership and it's not as strong as it 
was, but it is still very lethal and still very focused on us 
as a country, planning to still execute attacks against us and 
other western interests.
    There's been progress, but we've still got a long way to 
go. From the overall strategy standpoint, we're still very much 
invested in Pakistan. We think that's an important long-term 
relationship. They still ask the question: Are you staying or 
going this time? Not unlike the question that gets asked in 
Afghanistan. The Senator Kerry-Senator Lugar bill is very 
important as far as I'm concerned, because it's not about the 
$1.5 billion a year as much as it is a 5-year commitment to 
Pakistan.
    So our strategy is, I think, much more comprehensive with 
Pakistan than it used to be. That said, there are limits. It's 
a sovereign country and they're very much in charge of their 
own country.
    Senator Hagan. Thank you. I see that my time is out.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Admiral, I'd like to add my thanks to you and Deborah and 
your sons for all the years of service that you've given our 
country, and also to express my appreciation for the integrity 
and forthrightness that you have brought to this job. I can 
tell you that it is greatly appreciated on this side of the 
river and, having spent 5 years in the Pentagon, I know it's 
appreciated on the other side as well.
    There's been a lot of talk about Afghanistan. I'm going to 
ask some questions on it. But before I do, I would like to 
point out that we're doing this Quadrennial Defense Review and 
it's a very important one with the new administration in. I 
hope that we don't lose sight on either side of the river of 
the larger aspects of national strategy that sometimes fall 
away at the expense of short- and mid-term ground commitments 
that can affect force structure in the short term, but really 
not play out to our national advantage in the long term.
    In the interest of time, I have two questions that I would 
like to submit for the record on that. One of them relates to 
the size of our Navy. The other regards the roles and missions 
of the Marine Corps. I will submit that to you for the record.
    With respect to the situation in Afghanistan, there's been 
discussion earlier about whether this is a new strategy or an 
ongoing strategy. The most important point I believe is whether 
this is a valid and achievable strategy, whether we have 
attainable goals that are clearly articulated our side to the 
other side and to the American people, and whether those goals 
have an understandable end point so that we know when we are 
done, particularly in a military sense.
    What you are attempting to achieve or what the 
administration says that it's attempting to achieve is in some 
ways without historical precedent. We've had a lot of 
discussion today about Iraq as something of a touchstone here. 
But as you know and I know, for better or worse, the Iraqis 
have been used to in the past a strong central government, 
strong national government, and they also have for a very long 
time had a national army. Hundreds of thousands of Shia are 
known to have died in the war against Iran, fighting in the 
national army of Iraq. It's a different situation with respect 
to Afghanistan.
    I wonder if you would comment on the historical precedent 
or lack thereof for what you are attempting to do right now.
    Admiral Mullen. I think history is something we must pay 
attention to, recently in Iraq and the things that we've 
learned there, the things that are the same, the things that 
are different, obviously the history in Afghanistan, which has 
rich lessons as well, and it's a country that's never been 
governed centrally. I certainly understand that.
    I don't argue for a strong central government in 
Afghanistan. I think it's important that there is governance 
that is available to the people at every level. So in the 
totality of governance that I would look at for the future, it 
would be from village to some level of relatively weak central 
government that isn't corrupt, more than anything else, in 
terms of establishing some semblance of governance for the 
future.
    I hear the discussions about an occupying force. I think 
McChrystal said it very well not too long after he got there, 
that it isn't necessarily how big; it's what you do with what 
you have and how the Afghan people----
    Senator Webb. In the interest of time, my readings are that 
in the history of Afghanistan the largest national army, actual 
national army, was somewhere between 80,000 and 90,000.
    Admiral Mullen. In 1979.
    Senator Webb. Your goals with respect to a national level 
force are at what level?
    Admiral Mullen. Right now, for the army to be 130,000.
    Senator Webb. National police, military combined?
    Admiral Mullen. Right now it would be about 240,000 or 
230,000 combined.
    Senator Webb. In the absence of an affiliation with a 
national government, what is the challenge of building a 
national military and police force of that size?
    Admiral Mullen. I think the challenge is huge. The only 
thing I would say is that as a percentage of the population the 
goals that are out there, not just these but even the goals you 
may hear tied to the chairman's previous letter, are within the 
math as a percentage of the population.
    But I think you raise a good point. I don't underestimate 
the challenge of recruiting a force that could do this at the 
national level. I am encouraged because the army is seen as the 
one non-corrupt institution the country has and it's held in 
pretty high regard by the people. They're also an excellent 
fighting force historically, with a great warrior mentality.
    Senator Webb. We run the risk, as I mentioned to General 
Petraeus and General McChrystal, of allowing our success to be 
defined by something that's never happened before, something 
that we can't totally control, which is something that concerns 
me.
    You're familiar with this raid that took place in Somalia 
within the past 24 hours?
    Admiral Mullen. I've seen the press reports.
    Senator Webb. In concept, this was American Special 
Operations coming in over the horizon, presumably off of naval 
ships, taking out an element of al Qaeda, and returning back to 
its original point of origin, which to me, if the target was an 
appropriate target, is an appropriate way to use military force 
against international terrorism. Would you agree?
    Admiral Mullen. Globally, we're very focused on this. I'd 
actually be happy to go through the details of that, but I'd 
really need to do it in a closed session.
    Senator Webb. It points to a concern that a lot of people 
who have served and a lot of people who have written about the 
situation in Afghanistan share. That is that maneuverability is 
the most effective way to conduct operations against 
international terrorism, and the more territory that you have 
to defend or occupy the more vulnerable you are in terms of 
carrying out your mission.
    I know the counter-argument about the populace, but it 
would seem to me that, from what I've been hearing or reading 
with respect to the level of activity of al Qaeda in 
Afghanistan, it seems to be very low. We have to be pretty 
careful in terms of how we lock our people down in defensive 
cantonments as we approach the issue.
    Admiral Mullen. I think you'll see McChrystal emphasize the 
exact maneuverability that you're talking about. I take it a 
huge part of that is just footprint-related. The larger the 
footprint, the less maneuverable you may be. But clearly he 
does not want his people in cantonments and he's made that very 
clear.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, Admiral.
    Admiral Mullen. Good morning, Senator.
    Senator Udall. It's good to see you.
    Again, let me touch on three subjects and I'll do my best 
to use my time efficiently: on ``Don't Ask, Don't Tell,'' on 
Iraq, and then turn to Afghanistan.
    When you testified at your last confirmation hearing, you 
rightly pointed out that the law of the land was ``Don't Ask, 
Don't Tell,'' and it was the Pentagon's job to implement and 
abide by that policy. We often look to you for personnel 
recommendations and as we are on the verge, I believe, of 
holding the first hearing, perhaps this fall, in 16 years on 
``Don't Ask, Don't Tell,'' I would welcome your thoughts and 
would ask if you would consider putting your thoughts in 
writing before that hearing later this fall, so that we can 
have the benefit of your thoughts.
    Admiral Mullen. Yes, sir. I'd be glad to do that.
    Senator Udall. Thank you for that.
    I want to commend the chairman for his willingness as well 
to consider moving in that way.
    To Iraq: National elections will be in January, there is 
some talk of a concurrent referendum on the presence of our 
troops there. Ambassador Hill believes that it won't actually 
be brought to the ballot, but I would like your thoughts on 
what General Odierno and others are preparing if that were to 
be on the ballot and were to pass.
    Admiral Mullen. This was a possibility last summer, spring 
and summer, as well, and it fell out and was moved to the 
right. It's obviously resurfaced. It is a great concern on the 
part of both Ambassador Hill and certainly General Odierno. 
Obviously, as part of the political spectrum that is there that 
I think is such a dominant part of how Iraq moves ahead, the 
outcome with respect to whether this actually gets voted on or 
not, the referendum occurs, I think is really critical.
    We were on a plan and on a glide slope right now that we 
think makes a lot of sense, gets us through the elections. Then 
actually we start coming down pretty dramatically starting in 
the spring to that 35,000 to 50,000. Clearly, the Iraqi people 
and the Iraqi Government are in charge of their country. If 
there's a referendum that we're going to leave, we'll leave.
    The military view from a security standpoint right now, we 
think that's pretty high risk. The glide slope that we're on is 
one that we're much more comfortable with.
    Senator Udall. Thanks for that update. I think we'd be well 
served to continue to prepare for any of those particular 
scenarios.
    Let me turn to Afghanistan, but in an interesting 
connection. I want to turn to Deborah. She may have done more 
for our future counterinsurgency efforts than anybody because, 
if my memory is right, she encouraged, strongly encouraged, you 
to read the book entitled ``Three Cups of Tea.'' I know Greg 
Mortenson. I know you've gotten to know him. He's pointed out 
that cultural sensitivity is in some ways one of our greatest 
weapons. There's no place like the United States for cultural 
sensitivity since we have every culture, every ethnic group, 
every racial group, every country, represented here among our 
population.
    He noted and you noted in some remarks that western fast 
food culture is not well suited to that part of the world. He's 
speaking of Afghanistan, the Middle East. Results are measured 
in decades and generations, rather than minutes and seconds. It 
takes time to build relationships, time to learn cultures, time 
to foster sincerity and mutual respect.
    My question to you is, do we have that time? I remember 
General Petraeus talking about different clocks in Washington 
and Baghdad as we were talking about timelines. What are the 
different clocks telling you about what's happening in Kabul 
and here in Washington?
    Admiral Mullen. I'm greatly worried about the time that we 
have. That's why I have such a sense of urgency about getting 
this right. It's why I recommended, very specifically that's 
why I recommended, that General McChrystal be put in a 
leadership position out there, because I don't think we have a 
lot of time. At the same time, I feel we almost must take time 
because it's such a vital part of the world long-term from the 
standpoint of our strategic national interests. This is 
Afghanistan and Pakistan, it's Central Asia and South Central 
Asia.
    It's a real conundrum in that regard. I think we have to 
move quickly to start to turn this thing around. Then at the 
same time, I think we have to have a long-term relationship 
that allows those young girls, when I went out there to open up 
that school, to grow up and make a difference as they raise 
families and, as Greg Mortenson would say, they give guidance 
to their sons: You are not going to go do this.
    Senator Udall. Yes, the heartening core of that effort is 
that the elders in those communities, in other words the men, 
understand the potential if you empower women in those 
cultures. At the same time, those are very patriarchal cultural 
structures.
    Again, thank you, Deborah, for what you've done to help us 
in these important national security efforts.
    My final question is the footprint debate we're having 
about Afghanistan. I know Secretary Gates expressed a concern 
about being seen as occupiers as well as partners.
    He said an increased footprint becomes part of the problem, 
depending on whether the nature of the footprint and the 
behavior of those troops and their attitudes and their 
interactions with the Afghans promotes an occupier perspective 
or a partnership perspective.
    What are your thoughts on this question of increased 
footprint and how we find that right balance?
    Admiral Mullen. I think that under no circumstances can we 
be seen as an occupier. We know we're not. That's who we are. 
We've never been. We haven't done it anywhere. But that message 
has to be understood by the Afghan people. I think General 
McChrystal, as I indicated earlier, said it very well not too 
long after he got there. He was much less concerned about 
footprint, although he has a concern, than he is about what are 
you doing with it. So what are you actually doing to engage the 
people, to let them know you're on their side in a way that 
they accept that?
    We were in too many cantonments. We were not integrated 
with them. We weren't living with them. The message was one of 
occupation on the part of many. There again, the Afghan people 
don't like the Taliban. They don't want to return to that rule. 
But they still have questions about whether we're staying long-
term, not just the combat side of this, but whether we're 
staying long-term and we're going to be with them. Before we 
left them and they know that.
    It's really, I think, what you're doing with the forces 
that are there, as opposed to the size of the footprint.
    Senator Udall. I see my time has expired. Thank you again 
for your service and I look forward to working with you as we 
continue to make the case to the American people with three or 
four or maybe even just two quick bullet points about why we 
have to be successful in Afghanistan.
    Thank you.
    Chairman Levin. Thank you very much, Senator Udall.
    Again, thank you very much, Admiral, for your service, for 
your answers today. I think that colonel and that captain that 
I quoted before put the issue very succinctly for me, which is 
that we have to look hard at how we generate Afghan forces and 
that the lack of Afghan forces is our Achilles' heel. That was 
dramatically brought to our attention when we were in Helmand 
Province; the ratio of forces was 5-to-1, 5 marines, 1 Afghan 
soldier. Totally unacceptable.
    No one's talking about removing all of our forces from 
Afghanistan. The question is whether we go beyond at this time 
and make a commitment at this time to additional combat forces, 
beyond what has been already put in motion. That is an issue 
worthy of debate. It is part of a much larger picture. As you 
have indicated here this morning, this is not just a picture of 
one part, of just combat troops additional to what's already a 
commitment. There are many other issues involved here in terms 
of the resources that may be requested.
    We look forward to your review as the Chairman of the Joint 
Chiefs, taking I presume an independent review with your other 
chiefs of whatever recommendation is presented to you. You 
obviously put a great deal of stock in a McChrystal 
recommendation when it's forthcoming. But you will be giving 
your own independent view to the Secretary of Defense, and he 
will be giving his recommendation, I presume, to the President. 
Is that the way it works?
    Admiral Mullen. Yes, sir.
    Chairman Levin. We are going to stand adjourned. We are 
obviously going to move as quickly as we can with your 
nomination. I'm sure you're going to get a very strong 
unanimous vote from this committee. We've already heard 
everyone speak out on it. I see no reason why we can't proceed 
very promptly to the floor. There may be some questions for the 
record. If there are, we would hope they would be filed within 
the next 24 hours so we can get this done promptly.
    We thank again your wife and family. I think each one of us 
has touched upon their service as well as your own, and we're 
grateful for all of it.
    We stand adjourned.
    [Whereupon, at 12:04 p.m., the committee adjourned.]

    [Prepared questions submitted to ADM Michael G. Mullen, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. On previous occasions, you have answered the committee's 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act, the last time being in connection with your first nomination to be 
Chairman of the Joint Chiefs of Staff (JCS).
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
last confirmation hearing?
    In light of your experience as Chairman, do you see any need for 
modifications to Goldwater-Nichols? If so, what modifications do you 
believe would be appropriate?
    Answer. No. Overall, the Goldwater-Nichols reforms have 
strengthened the warfighting and operational capabilities of our 
combatant commands and our Nation. The importance of these reforms has 
not diminished with time.
                                 duties
    Question. Based on your experience as Chairman, what 
recommendations, if any, do you have for changes in the duties and 
functions set forth in section 152 through 155 of title 10, U.S.C., and 
in regulations of the Department of Defense (DOD), that pertain to the 
Chairman and the Vice Chairman of the JCS and the organization and 
operation of the Joint Staff in general?
    Answer. Having been in office for a sufficient time to determine if 
changes are advisable, I do not recommend any changes to the law.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Chairman of the JCS to the following officials:
    The Secretary of Defense.
    Answer. DOD is composed of the Office of the Secretary of Defense 
(OSD), the Military Departments, the Chairman of the JCS, the combatant 
commands, the Inspector General of DOD, the Defense Agencies, the DOD 
Field Activities, and such other offices, agencies, activities and 
commands established or designated by law, or by the President or by 
the Secretary of Defense. The Secretary of Defense, according to 
existing law, assigns the functions of the heads of these offices. The 
Chairman and the JCS are responsible to the Secretary of Defense for 
the functions assigned to them. Under title 10, the Chairman, JCS is 
the principal military advisor to the President, the National Security 
Council (NSC), and the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Chairman with the Deputy Secretary is 
similar to that with the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. They may issue instructions and directive type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the JCS.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, and for Networks and 
Information Integration, all Assistant Secretaries of Defense are 
subordinate to one of the Under Secretaries of Defense. In carrying out 
their responsibilities, and when directed by the President and 
Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the JCS. If confirmed, I will work closely with 
the Assistant Secretaries in a manner similar to that described above 
for the Under Secretaries.
    Question. The General Counsel of the Department of Defense.
    Answer. Under title 10, U.S.C., section 140, the DOD General 
Counsel serves as the chief legal officer of DOD. In general, the DOD 
General Counsel is responsible for overseeing legal services, 
establishing policy, and overseeing the DOD Standards of Conduct 
Program, establishing policy and positions on specific legal issues and 
advising on significant international law issues raised in major 
military operations, the DOD Law of War Program, and legality of 
weapons reviews. The office of the DOD General Counsel works closely 
with the Office of Legal Counsel to the Chairman of the JCS, and 
communications with the combatant commanders by the DOD General Counsel 
are normally transmitted through the Chairman of the JCS.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the JCS performs such duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense. When there is a vacancy in the Office of the Chairman or in 
the absence or disability of the Chairman, the Vice Chairman acts as 
Chairman and performs the duties of the Chairman until a successor is 
appointed or the absence or disability ceases.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., section 165, provides that, subject to 
the authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of Military Departments are responsible for administration and support 
of forces that are assigned to unified and specified commands.
    The Chairman advises the Secretary of Defense on the extent to 
which program recommendations and budget proposals of the Military 
Departments conform to priorities in strategic plans and with the 
priorities established for requirements of the combatant commands.
    Question. The Chiefs of Staff of the Services.
    Answer. Because of the Goldwater-Nichols Act, the Service Chiefs 
are no longer involved in the operational chain of command. However, 
this does not diminish their importance with respect to title 10 
responsibilities, and among other things, they serve two significant 
roles. Primarily, they are responsible for the organization, training, 
and equipping of their respective Services. Without the full support 
and cooperation of the Service Chiefs, no combatant commander can 
assure the preparedness of his assigned forces for missions directed by 
the Secretary of Defense and the President.
    Second, as members of the JCS, the Chiefs are advisers to the 
Chairman and the Secretary of Defense as the senior uniformed leaders 
of their respective Services. In this function, they play a critically 
important role in shaping military advice and transforming our joint 
capabilities. If confirmed, I will continue to work closely with the 
Service Chiefs to fulfill warfighting and operational requirements.
    Question. The combatant commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. By law, and to the extent 
directed by the Secretary of Defense, the Chairman serves as spokesman 
for the combatant commanders oversees their activities. He provides a 
vital link between the combatant commanders and other elements of DOD, 
and as directed by the President, may serve as the means of 
communication between the combatant commanders and the President or 
Secretary of Defense.
    Question. The National Security Advisor.
    Answer. The National Security Advisor is a Special Assistant and 
direct advisor to the President. As the role of the Chairman is to 
serve as the principal military advisor to the President, NSC, Homeland 
Security Council, and Secretary of Defense, if confirmed, I will 
continue to work closely with the National Security Advisor to ensure 
our efforts are synchronized across the interagency and combatant 
commanders.
    Question. The Assistant to the President/Deputy National Security 
Advisor for Iraq and Afghanistan.
    Answer. The Deputy National Security Advisor for Iraq and 
Afghanistan is a direct advisor to the President. As the role of the 
Chairman is to serve as the principal military advisor to the 
President, NSC, Homeland Security Council, and Secretary of Defense, if 
confirmed, I will continue to work closely with him to ensure our 
efforts are synchronized across the interagency and combatant 
commanders.
    Question. The Under Secretary of Energy for Nuclear Security.
    Answer. The Under Secretary of Energy for Nuclear Security/
Administrator for Nuclear Security Administration is charged with 
keeping nuclear weapons and naval nuclear reactors safe. The Under 
Secretary of Energy for Nuclear Security/Administrator for Nuclear 
Security Administration works with a network of labs, test sites and 
production sites owned by the government and run by contractors, such 
as Los Alamos National Laboratory. If confirmed, I will collaborate 
with the Under Secretary to keep these facilities safe, transport 
weapons and materials safely, and ensure that weapons are ready and 
available to meet national security needs.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard heads a joint activity of 
DOD and is the senior uniformed National Guard officer responsible for 
formulating, developing and coordinating all policies, programs, and 
plans affecting more than half a million Army and Air National Guard 
personnel. Appointed by the President, he serves as principal adviser 
to the Secretary of Defense through the Chairman of the JCS on National 
Guard matters. He is also the principal adviser to the Secretary and 
Chief of Staff of the Army, and the Secretary and Chief of Staff of the 
Air Force on all National Guard issues. As the Chief of the National 
Guard Bureau (CNGB), he serves as the department's official channel of 
communication with the Governors and Adjutants General. If confirmed, 
the CNGB will continue to have full access to the upper echelons of the 
Joint Staff and me.
                            major challenges
    Question. What do you consider to be the most significant 
challenges you have faced in your first term as Chairman of the JCS?
    Answer. The most significant challenges I have faced in my first 
term as Chairman have been: (1) managing the transition in Iraq from a 
U.S.-led to Government of Iraq-led effort; (2) resourcing the 
President's AF-PAK strategy--military and civilian components; and (3) 
addressing Health of the Force issues that threaten the vitality of the 
All-Volunteer Force.
    Question. What new challenges do you expect to face if you are 
confirmed for a second term?
    Answer. As a global force with global responsibilities, the 
realities of today are cause for measured optimism and focused concern. 
While constrained and weakened, al Qaeda remains a national security 
threat. The epicenter of its senior leadership is in south Asia, making 
that region my number one priority. We have a new strategy for the 
effort there, and new leadership on both the military and civilian 
side. All existing troop requests for 2009 have been approved by the 
President and a new approach to counter-insurgency is already making a 
difference. In Pakistan, increased military and diplomatic dialogue, 
coupled with tangible military progress in the border regions, is 
encouraging. Pakistan deserves our sustained commitment.
    Iranian and North Korean behavior provides ample reason for 
concern. Iran poses grave challenges because of its confrontational 
posture, nuclear ambitions, and longstanding support to terrorist 
organizations and activities. The tumultuous events coincident with the 
June 2009 presidential elections in Iran have complicated U.S. and 
international community efforts at engagement. North Korea's 
belligerence, its quest for nuclear weapons, and its history of weapons 
of mass destruction and missile proliferation make it an equally 
difficult and dangerous challenge.
    I remain concerned that the pace of current operations prevents our 
forces from training across the entire range of operations and erodes 
our readiness to counter future threats. We must continue to 
institutionalize proficiency in irregular warfare while restoring the 
balance and strategic depth necessary to assure national security. 
Additionally, the demands on our equipment are simply unsustainable. 
Continued operations that are not matched with appropriate resources 
will further degrade our warfighting systems, equipment, platforms and, 
most importantly, our people.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I intend to continue making the Afghanistan-
Pakistan region the main effort. It is no longer a question of doing 
only that which we can, it is now, and urgently so, an imperative to 
demonstrate the resolve to do what we must in Afghanistan and Pakistan. 
Without a commensurate shift in focus and resourcing both the military 
and civilian components, the conditions in Afghanistan will worsen.
    In Iraq, managing the drawdown and transition to an Iraqi-led 
security effort is critical to an enduring peace in that country and 
the region. I believe that our success in Iraq is vital for regional 
stability.
    Our Armed Forces continue to shoulder a heavy burden not only in 
the broader Middle East and South Central Asia, but worldwide. While 
our military remains the most capable in the world, the stress on our 
forces and the strain on our families have been tremendous. Over the 
coming 2 years, the number of deployed forces from our Active and 
Reserve components and National Guard will remain high, exacerbating 
these concerns even further. We will not see improvements in the dwell 
time of our ground forces until 2011, at the earliest.
    The quality, numbers, and fighting capability of the men and women 
serving in and supporting our military are vital, yet insufficient 
alone, to counter the challenges of this new century. Our national 
security requires the full involvement of not only the entire U.S. 
Government but also that of our international community partners. We 
must continue to provide the sustained presence and persistent 
engagement required to effect enduring partnerships and cooperation 
necessary to secure our vital national interests. Through multilateral 
cooperation with our partners and allies, we will continue to take 
prudent measures to defend against any threat to the Nation.
                               priorities
    Question. Recognizing that challenges, anticipated and unforeseen, 
will drive your priorities to a substantial degree, if confirmed, what 
other priorities, beyond those associated with the major challenges you 
identified in the section above, would you set for your second term as 
Chairman?
    Answer. Upon becoming Chairman, I set three priorities for the U.S. 
military. These continue to guide the United States even as we assess 
and adjust our efforts. First, we will improve stability and defend our 
vital national interests in the broader Middle East and South Central 
Asia. Second, we will improve the health of our Armed Forces. Third, we 
will balance global strategic risks such that we can prevent future war 
by deterring conflict, while always being prepared to act decisively 
should deterrence fail. In so doing, we defend the Nation and reassure 
our allies and partners around the world.
             acquisition reform and acquisition management
    Question. What is your view of the changes made by the Weapon 
Systems Acquisition Reform Act of 2010?
    Answer. I fully support the changes made in the Acquisition Reform 
Act and am working to implement the necessary changes to the 
requirements process. The results these changes seek are long overdue.
    Question. What role have you played in the implementation of the 
act thus far and, if confirmed, what role do you expect to play in the 
implementation of the act in the future?
    Answer. As Chairman, I have been working--and, if confirmed will 
continue to strive--to implement the much-needed changes to the 
requirements process. I support and, if confirmed will continue to 
support full implementation of the act.
    Question. What additional steps do you believe Congress or DOD 
should take to ensure that trade-offs between cost, schedule, and 
performance objectives for major weapon systems are made at an 
appropriately early point in the acquisition process?
    Answer. The list of problems remains long. We still have a problem 
managing requirements creep. Cost estimates, although made in good 
faith, are often too low, leading to unexpected cost growth. High 
technology solutions are adopted before they are proven. The Joint 
Capabilities Integration and Development System is much too complex and 
needs to be revised.
    Congress has taken important steps in the 2009 Acquisition Reform 
Act to address most of these issues, but increased participation by the 
uniformed military throughout the acquisition lifecycle, stronger 
oversight of contractors, deeper understanding of the incentives in 
different contract types, and increased focus on improving our military 
acquisition corps are all needed.
    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of the JCS in the requirements 
determination, resource allocation or acquisition management processes?
    Answer. We are reviewing a realignment of the roles that the 
Chairman and Vice Chairman play in requirements determination, to best 
manage requirements in the future, and to better balance the inputs of 
all stakeholders.
    Question. What is your view of the Nunn-McCurdy requirements for 
Major Defense Acquisition Programs that fail to meet cost, schedule, 
and performance objectives?
    Answer. The Nunn-McCurdy certification requirements force the 
Department to perform a fundamental net reassessment of a program, and 
decide to either restructure it appropriately or terminate it. This is 
a very important requirement. From a Joint Requirements Oversight 
Council (JROC) perspective, it is appropriate to ask the warfighter to 
revalidate a program's essentiality and requirements. In 2007, the JROC 
established a trip-wire process to bring troubled programs back to the 
JROC for a review and to consider performance trade-offs to mitigate 
further cost growth and/or schedule delays without sacrificing joint 
warfighting capabilities.
    Question. What is your assessment of the effectiveness of the JROC 
in the DOD acquisition process?
    Answer. The results of our acquisition systems speak for 
themselves. A more credible and more empowered JROC can help control 
requirements growth and certify systems which fail Nunn-McCurdy 
requirements. We must better involve all with a stake in determining 
the necessary tradeoffs between cost, schedule, and performance.
    Question. How should the role and priorities of the JROC change, if 
at all?
    Answer. The JROC should place more priority on focusing on 
combatant commander needs, carefully managing the requirements of 
systems in development, and ensuring new systems have adequate 
requirements definition and trade space.
    Greater emphasis must be placed on the need for balanced 
capabilities that match the strategic direction of the Department, meet 
the need dates of the combatant commanders, and provide solutions that 
remain fiscally responsive. Increasing the authority, responsibility 
and accountability of the uniformed military exercises over the 
requirements determination process is also vital in achieving the Joint 
Force we need.
               distribution of general and flag officers
    Question. At the request of the Secretary of Defense, Congress 
included a provision in the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 that designated up to 324 
general and flag officer positions as joint duty assignments that are 
excluded from the limitation on the number of general and flag officers 
in each Service, and specified the minimum number of officers required 
to serve in these positions for each Service. The provision also 
reduced the number of general and flag officers authorized to serve on 
active duty in each Service. Implementation of this provision was 
delayed until 1 year after the Secretary of Defense submits a report on 
the proposed implementation of the provision. The report was submitted 
in June 2009.
    What is your view of the merits of this provision?
    Answer. I am a strong proponent of this provision, which does not 
reduce the number of general and flag officers authorized to serve on 
active duty. Implementation of this provision will support the 
objectives of the Goldwater-Nichols act by creating a statutory 
framework that allows the Secretary of Defense to reimburse the 
Services for participation in joint positions with general and flag 
officer authorizations. Importantly, the Joint Pool recognizes in-
Service general and flag officer requirements to accomplish the mission 
to organize, train and equip, separate from joint general/flag officer 
requirements.
    Question. In your view, what impact will implementation of this 
provision have on joint officer assignments?
    Answer. The Joint Pool will increase competition for these senior 
joint duty assignments. The legislation provides incentives for the 
Military Services to nominate their best officers, from both their 
Active Duty and Reserve components, thereby promoting the competencies 
required for our Nation to continue to address the challenges that 
confront our forces. As proposed, the distribution of senior joint 
authorizations among the Military Services with a specified minimum 
distribution for each Service expands the number of positions open to 
nomination by all four Services.
    Question. In your opinion, should implementation of this provision 
be delayed until June, 2010, 1 year from the date the Secretary 
submitted the required report?
    Answer. No. The Department is requesting enactment of conforming 
legislation in the Department's 2010 legislative package. This provides 
the Department the flexibility to meet rapidly emerging joint 
requirements.
                           rebalancing forces
    Question. In connection with your first nomination to be Chairman 
of the JCS you answered questions on the progress toward achieving 
Secretary Gates' vision set forth in a memorandum of July 9, 2003 for a 
better balance in the capabilities of the Active and Reserve 
components.
    During your first term as Chairman of the JCS, what progress has 
been made in achieving the Secretary's vision?
    Answer. The Department has made significant progress towards 
rebalancing the total force through realignment of approximately 
130,000 billets to date, with 225,000 by 2015, making more of the high 
demand capabilities previously residing solely in the Reserve component 
available in our active force. For example, one initiative taken is 
changing the percentage of Civil Affairs capability residing the 
Reserve component from 94 percent to 76 percent with a corresponding 
increase in the Active component, while growing an additional 2,800 
authorizations. By the end of fiscal year 2013, this will have more 
than doubled our rotational capacity for these units. Force structure 
changes like these have reduced the frequency of mobilizing Reserve 
component units and individuals, and continue to improve our 
operational and strategic flexibility.
    Additionally, greater access and predictability of capabilities 
residing in the Guard and Reserve has been achieved through the use of 
improved rotational management tools such as the Army's Force 
Generation model (known as ARFORGeneral) which accounts for 
availability of forces based on dwell time, mobilization requirements, 
and reset periods to support existing and planned demand for forces. We 
are now giving our Reserve and Guard forces up to 24 months 
notification prior to deployment.
    Finally, we have instituted policy changes, captured in DOD 
Directives, to facilitate more efficient planning, preparing, and 
executing of the mobilization and demobilization processes for the 
Reserve component forces. These policy changes clearly outlined the 
time requirements for accessing the Reserves, further improving 
predictability for the servicemembers, their families, and employers.
    Rebalancing the force is an ongoing process. The Department will 
continue to preserve the Reserve component's ability to operate across 
the range of missions as part of the Total Force.
    Question. What do you consider the biggest continuing obstacles to 
achieving the goals that the Secretary of Defense set forth in his 
memorandum?
    Answer. The biggest continuing obstacle to achieving the goals the 
Secretary of Defense set forth is that we must fight and win the wars 
of today while simultaneously preparing for tomorrow. I also see three 
additional challenges. First, the competing demands for Force on a 
global scale. Second, assuming greater risk in other theaters to 
achieve goals in the broader Middle East jeopardizes our capacity to 
meet global contingencies. Finally, the decline in Health of the Force 
and the critical importance of developing a restoration plan 
complemented by an investment strategy is significant given the time 
necessary to recover.
    Additionally, we are challenged to determine the capabilities 
needed in the future and therefore, the appropriate balance between the 
Active and Reserve components while maintaining sufficient warfighting 
capability. To that end, rebalancing of the force is an ongoing 
activity within the Department. The Department continually assesses its 
force structure and rebalancing within, and between, the Active and 
Reserve components with the expressed purpose of improving readiness 
and deployability to support the full spectrum of mission. Reserve 
component forces must be adequately resourced and prepared for 
anticipated requirements.
    During this protracted war, we continue to depend on the Reserve 
components and they have performed in an exemplary manner. It is true 
that when you call out the Reserve component you call out the will of 
the Nation, and they have answered that call.
                          mental health issues
    Question. The final report of the DOD Task Force on Mental Health, 
issued in June 2007, found evidence that the stigma associated with 
mental illness represents a ``critical failure'' in the military, 
preventing individuals from seeking needed care. The report states, 
``Every military leader bears responsibility for addressing stigma; 
leaders who fail to do so reduce the effectiveness of the 
servicemembers they lead.'' In light of increasing suicide rates in 
each of the Services and the increase in the number of servicemembers 
diagnosed with post-traumatic stress disorder (PTSD), it is more 
important than ever to ensure that servicemembers and their families 
have access to mental health care and that the stigma associated with 
seeking such care is eliminated. In your response to a previous advance 
policy question on this issue, you stated that you ``intend to provide 
strong leadership to ensure that we address'' the stigma associated 
with seeking help for mental health issues in the military.
    What actions have you taken over the past 2 years and what further 
actions are necessary, in your view, to alleviate this stigma?
    Answer. As a nation, we have an enduring obligation to care for 
those who bear the scars of war, seen and unseen. This is why over the 
past 2 years I have made reducing the stigma of mental health care a 
personal priority. I realize that our servicemembers and families will 
be reluctant to seek mental health care and treatment if they believe 
there will be a negative impact or if there are obstacles to securing 
that care. I also recognize that the stigma associated with seeking 
mental health treatment is common in our country and that there are 
inequities between mental health services and health care in general. 
Accordingly, I have promoted policies and practices along several lines 
of action to mitigate stigma and promote access to care.
    I have actively supported and pushed initiatives by OSD, all 
Military Services, the combatant commands, and all other related 
agencies in activities to reduce the stigma associated with seeking 
help for mental health issues in the military. I have launched a 
Campaign Plan with specific initiatives to mitigate stress and promote 
access to mental health treatment, and have actively engaged the senior 
leaders of the Services and combatant commands to speak out as well. I 
have made reducing stigma a leadership issue for commanders at all 
levels across the Services. My staff is actively engaged in surveying 
and analyzing the distribution of mental health staff and ancillary 
practitioners across the Department in an effort to improve the 
availability and effectiveness of the treatment they provide. I have 
directly engaged both the leadership of the uniformed services and 
contract providers of healthcare to initiate policies and programs to 
improve access and mitigate stigma. I believe that by addressing mental 
health issues on several fronts and at multiple levels of DOD, the 
identification of mental health related counseling or treatment becomes 
more acceptable reducing the historical stigma.
    I have had the advantage of being able to talk to our 
servicemembers on the ground as well as families and health care 
workers in their neighborhoods. The town hall venue has given me the 
opportunity to hear the voices of individuals, individuals who identify 
areas where we need to strengthen our safety net. The other key 
component in providing this needed safety net is for all levels of 
leadership to be on board and support initiatives providing mental 
health services reducing the stigma at the unit level. I am acutely 
aware that many servicemembers and their families feel that seeking 
mental health treatment will adversely affect their careers. 
Accordingly, I have supported all efforts to recognize that combat 
imposes stress on everyone and can impose enduring changes, in ways 
that are normal and fully acceptable. Providing support and access to 
care are vital to maintaining the strength and viability of the force 
and should be encouraged in an effort to sustain our combat capability.
    If confirmed, I will continue to evaluate our mental health 
programs, training, and the needs of our servicemembers and their 
families to identify areas for improvement across DOD in all Services. 
Operational research methodologies should be used to identify improved 
resource allocation in the areas of mental health. Mental illness due 
to combat operations needs to be addressed and treated just like any 
other medical condition. I have made it a point that every leader in 
DOD must conform to this line of thought. If confirmed, I intend to 
continue my commitment to provide strong leadership to ensure that we 
completely remove the fear and stigma in seeking the proper care for 
our most precious resources.
    Question. What is your view of the need for revision of military 
policies on command notification when servicemembers seek mental health 
care?
    Personal mental health issues cannot be ignored and as an 
institution, DOD must continue to address this issue directly. While 
mental health questions need to be asked and investigated for security 
clearances, a balance needs to be established between mental health 
issues that have a high possibility to be detrimental to national 
security and mental health issues that the member experiences and is 
actively seeking help.
    On July 2, 2009 a new Directive Type Memorandum (DTM) was issued 
that will soon be a new DODI. This new instruction will positively 
affect command notification reducing the stigma associated with 
receiving mental health treatment.
    DTM-006 was issued on July 2, 2009 - Revising Command Notification 
Requirements to Dispel Stigma in Providing Mental Health Care to 
Military Personnel. This new DTM that will become a DODI within 180 
days of issuance and applies to OSD, the Military Departments, CJCS, 
combatant commands, the Office of the Inspector General of DOD, the 
Defense Agencies, the DOD Field Activities, and all other 
organizational entities within DOD.
    The recommendations were based on the conclusions from the DOD Task 
Force on Mental Health findings. This newly issued DTM not only 
provides more specific standards for health care providers regarding 
when to notify commanders of military member's use of mental health 
services but also provides a balance between patient confidentiality 
rights and the commander's right to know for operational and risk 
management decisions. Stigma associated with mental health treatment is 
reduced by paralleling notification standards to those for reporting 
any other health issue.
    In the future, we have to continue to monitor and determine what 
additional measures are needed to affect positively our servicemembers 
and their families. If confirmed, I will continue to review current 
policies and ensure the policies do address the core issues surrounding 
mental health and not institutionalize stigma.
                 sexual assault prevention and response
    Question. Numerous cases of sexual misconduct involving military 
personnel in Iraq, Kuwait, and Afghanistan have been reported over the 
last several years. Many victims and their advocates contend that they 
were victimized twice: first by attackers in their own ranks and then 
by unresponsive or inadequate military treatment. They assert that the 
Command failed to respond appropriately with basic services, including 
medical attention and criminal investigation of their charges.
    Based on your experience as Chairman, what additional actions, if 
any, should the Joint Staff take in monitoring progress within the 
Military Services and the combatant commands' areas of responsibility 
in order to ensure effective implementation of a ``zero tolerance'' 
policy relating to sexual assaults?
    Answer. Sexual assaults remain at an unacceptable level. In fiscal 
year 2008, there were 251 reported cases in the operational theater. 
This is a significant increase from the 174 cases reported in fiscal 
year 2007. While we are improving access to care to victims when an 
incident occurs in theater, we still have a number of challenges in 
deployed areas based on dispersion of forces and proximity to support 
personnel.
    The Service Chiefs and I recognize that the prevention of sexual 
assault is the responsibility of all leaders and every soldier, sailor, 
airman, and marine. Leaders in particular must be apprised of command 
climate and aware of sexual assault or harassment incidents, and remain 
in the forefront to ensure that our policies are understood and 
enforced. They should also be held accountable in this area.
    At the same time, we must ensure victims of these crimes are 
provided the best care possible as well as offering a variety of 
counseling options to help them deal with this traumatic event. If 
reconfirmed, I will continue to stress my expectations to the entire 
Armed Forces.
    The Joint Staff is revising joint doctrine to better define the 
roles and responsibilities for addressing sexual assault in the 
operational environment. This includes pre-deployment training and in 
theater operational reporting and case management.
    Commanders at all levels across the Joint Force must remain 
committed to eliminating sexual assault within our forces through 
robust prevention and response policies; by providing thorough and 
effective training on awareness, intervention, and response measures 
and procedures. We recognize that not all victims will come forward. 
Commanders must identify and eliminate barriers to reporting; and 
ensure care is available and accessible. Confidence in the system is 
paramount.
    Question. What reporting requirements or other forms of oversight 
by Service leaders do you think are necessary to ensure that the goals 
of sexual assault prevention and response policies are achieved?
    Answer. Currently reports are submitted through Service channels. 
The fielding of the new DOD sexual assault integrated database will 
improve communication protocols to better track victims services, case 
management and disposition, and identify trends and areas requiring 
additional emphasis. This will give Service leaders better access to 
the most current information and status of cases.
    The new database will provide an important capability. Combatant 
commanders will have visibility to support trend analysis and strategic 
planning for their area of responsibility and enable them to provide 
better oversight and program management in the operational environment.
    Question. What is your understanding of the resources and programs 
the Services have in place in deployed locations to offer victims of 
sexual assaults the medical, psychological, and legal help that they 
need?
    Answer. There is a 24/7 response capability in garrison as well as 
deployed areas. Every military installation in the world now has a 
Sexual Assault Response Coordinator (SARC). Each SARC trains and 
oversees one or more Victim Advocates who help victims understand their 
reporting options and pathways to medical and mental health care.
    If victim support resources are not readily available at the point 
of incident, victims are transported to a facility with appropriate 
victim advocate support, medical and psychological care (regardless of 
Service) and investigative/legal support.
    The Services have primary responsibility to ensure sexual assault 
response personnel in deployed locations (SARCs, victim advocates, 
medical and mental health providers, criminal investigation, and legal 
personnel) are well trained to support victims, investigate, and 
respond to allegations of sexual assault. For example, the Navy uses a 
webinar forum to provide real-time online discussion and training for 
first responders in theater. Additionally, the Air Force has initiated 
a sexual assault response scenario-based evaluation to determine the 
effectiveness of first responders in the AOR.
    The Joint Staff will remain a key partner with the Services and OSD 
in the campaign against sexual assault. My staff works closely with the 
combatant commands during the development of operational plans and 
personnel policy guidance to ensure the prevention and response to 
incidents of sexual assault is addressed. Additionally, combatant 
commanders are placing increased emphasis on prevention through 
education and training by leveraging all available forms of media to 
continue awareness and education while deployed.
    Question. What is your view of the steps the Services have taken to 
prevent sexual assaults in combat zones?
    Answer. The Services are implementing procedures and processes to 
meet the challenges of preventing and responding to incidents of sexual 
assault in deployed areas. We have over 200 SARCs and victim advocates 
for all Services deployed in Iraq and Afghanistan at any one time.
    The Services provide baseline training for all military personnel. 
As soon as an individual enters the military, we educate him or her 
about sexual assault, our policies, programs, and prevention.
    Additionally, all servicemembers and first responders receive 
sexual assault and sexual harassment prevention training prior to 
deployment. In addition, coordination among Service sexual assault 
response personnel has improved support to victims in the operational 
environment and provides additional resources to conduct additional 
training if needed.
    We are providing our military members and leaders with more tools 
to empower them to take action. The Services have begun aggressive 
outreach programs, such as the Army's Intervene Act Motivate (IAM) 
Strong program to combat sexual assaults by engaging all soldiers in 
preventing sexual assaults before they occur. The Navy and Marine Corps 
use the Mentors in Violence Prevention and Sex Signal presentations to 
train sailors and marines on bystander intervention. The Air Force has 
also launched a training program focusing on bystander intervention.
    Furthermore, we are communicating the message using a variety of 
methods. The 2009 DOD Sexual Assault Awareness Month theme, ``Our 
Strength is for Defending: Readiness=Respect'' connects prevention of 
sexual assault to mission readiness. Our military members know that 
sexual assault is a crime and is incompatible with military service.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. We continue to improve and will always strive to do better. 
The services are responsible for training sexual assault response 
personnel to ensure they are well trained to investigate and respond to 
allegations of sexual assault. I support, for example, the Army's new 
IAM Strong program. IAM Strong emphasizes that leaders must understand 
their responsibilities to ensure that victims of sexual assault receive 
sensitive care and support and are not revictimized as a result of 
reporting the incident. It also provides tangible guidelines to help 
Army leaders remain alert to, and respond proactively to, incidents of 
sexual assault. Improved training for investigators and trial 
counselors is one of the Secretary's priorities. This includes the 
investigative resources in deployed areas. As you may imagine, the 
combat environment and deployed operations are very dynamic. The 
investigative resources are often strained by other mission 
requirements. Remoteness of locations, availability of transportation, 
or the level of ongoing operations may complicate access to resources. 
I believe the DOD training network in place now prepares them and 
investigators to handle sexual assault cases in a caring, responsive, 
and professional manner. Our ability to respond and support victims is 
critical.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential or restricted reporting 
to be effective?
    Answer. Yes. I believe current policies and procedures have 
improved care to victims of sexual assault; however, restricted 
reporting limits a commander's ability to support the victim, 
investigate, and/or hold alleged offenders accountable.
    Restricted reporting has been effective (original intent--to allow 
a sexual assault victim to confidentially receive medical treatment and 
counseling without triggering the official investigation process). 
Although the use of restricted, or confidential, reporting doesn't 
allow a commander to investigate alleged assaults, it does allow a 
sexual assault victim to confidentially receive medical treatment and 
counseling without triggering the official investigation process.
    Unrestricted reporting supports a sexual assault victim who desires 
medical treatment, counseling but also provides for official 
investigation of his or her allegations within existing administrative 
reporting channels (such as their chain of command, law enforcement or 
through the SARC).
    As our military members' confidence in the reporting and 
investigative policies and procedures improve, I believe and certainly 
hope that more victims will choose unrestricted reporting; this will 
ultimately increase offender accountability.
    Question. What problems, if any, are you aware of in the manner in 
which the restricted reporting procedures have been put into effect?
    Answer. Privacy for restricted and unrestricted reporting becomes a 
challenge in a deployed environment and remote locations where units 
are small communities and accountability of personnel is a critical 
task. In deployed areas confidential reporting becomes more difficult 
for the victim to reach out to the SARC or a victim advocate because of 
the need to keep track of all personnel movements within the theater 
and that support resources may not be co-located with the victim. The 
joint deployed environment could present additional difficulties in 
case management, delivering care, and tracking services due to the 
geographical dispersion of both victims and responders. Once the joint 
integrated sexual assault prevention and response data base becomes 
operational, our ability to communicate between the Services will 
improve. The database is currently projected for fielding in 2010.
    Question. If confirmed, what actions would you take to ensure 
senior level direction and oversight of efforts to prevent and respond 
to sexual assaults?
    Answer. If confirmed, I will continue to emphasize that eliminating 
sexual assault from our military requires a personal commitment by all 
soldiers, sailors, airmen, and marines. Critical to this effort is the 
role of our leaders and system accountability. Leaders at all levels 
must foster a climate of confidence in their units, lead by example, 
and take action that:

    <bullet>  demonstrates zero tolerance for offensive sexual 
behaviors,
    <bullet>  holds members accountable for their actions,
    <bullet>  disciplines offenders and lets unit members know exactly 
where leaders stand on sexual assault, and
    <bullet>  protects victim privacy through all phases of 
investigation and discipline.

    Without this leadership, our program cannot succeed and this crime 
will continue hurting the Americans who voluntarily risk their lives in 
defense of our country. I will stress together with our Service Chiefs 
that commanders and senior enlisted leaders must be held accountable 
for ensuring robust and effective sexual assault prevention and 
response programs in their commands.
    Another cornerstone of our program that requires continued emphasis 
is education and training. By educating our military members when and 
how to act and intervene, we will turn bystanders into actors who can 
prevent sexual assault.
    I will continue my open dialogue with the Secretary, Service 
Chiefs, and our men and women in uniform to ensure we have the best 
available resources and procedures in place to care for victims, 
improve prevention through training and education, and gain greater 
system accountability. The addition of the Service Vice Chiefs to the 
DOD Sexual Assault Advisory Council will make this senior forum more 
effective will aid in ensuring that policies and procedures are 
executable in the operational environment.
               commission on national guard and reserves
    Question. In a March 1, 2007 report to Congress, the Commission on 
the National Guard and Reserves recommended, among other things, that 
the Chief of the National Guard Bureau (CNGB) should not be a member of 
the Joint Chiefs. The grade of the CNGB has since been increased to 
general (O-10), as recommended by this Commission.
    In your response to previous advance policy questions on this 
subject, you stated your opposition to making the CNGB a member of the 
JCS.
    Do you still oppose making the CNGB a member of the JCS? Please 
provide your rationale.
    Answer. Yes. The JCS consists of the Chairman, Vice Chairman, and 
the Chiefs of Staff of the armed services. The National Guard is a 
component of the armed services and is represented on the JCS by the 
Chiefs of Staff of the Army and Air Force. A separate representation of 
a portion of the Reserve components from a portion of the services 
would be inappropriate, and in my view divisive of a Total Force. As a 
four star general officer, the CNGB is already participating in all 
appropriate JCS Tank sessions when domestic issues, which fall under 
the purview of our National Guard, are involved. This is similar to the 
methodology used to include the Commandant of the U.S. Coast Guard when 
specific Coast Guard equities are involved. In addition, if I am 
confirmed, the CNGB will continue to have full access to the upper 
echelons of the Joint Staff and me.
    Question. In its final report, issued on January 31, 2008, the 
Commission concluded, among other things, ``DOD must improve its 
capacities and readiness to play a primary role in the response to 
major catastrophes that incapacitate civilian government over a wide 
geographic area. This is a responsibility that is equal in priority to 
its combat responsibilities.'' In response to a request for your 
assessment of the Commission's final report, you stated, on April 21, 
2008: ``I have some concern with the Commission's ideas enhancing the 
Defense Department's role in the Homeland. While Reserve component 
civil support requirements are important, they should not be of equal 
importance to DOD combat responsibilities.''
    Is that still your view?
    Answer. Yes. I continue to believe that DOD should not have 
statutory or policy directives that elevate civil support to the same 
level as combat responsibilities. The Department has taken, and 
continues to take, seriously its responsibility to provide support for 
civil authorities.
    Using policy or statute to elevate the role of DOD's role in 
response to major catastrophes would: erode the Department's ability to 
perform its statutory responsibility; militarize domestic activities 
traditionally executed by civil authorities; and, undermine the role 
and credibility of other supported Federal departments in the 
fulfillment of their own unique statutory responsibilities.
     tactical control of federal military forces by state governors
    Question. In its final report to Congress (January 31, 2008), the 
Commission on the National Guard and the Reserves recommended DOD 
``develop protocols that allow Governors to direct the efforts of 
Federal military assets responding to an emergency such as a natural 
disaster.''
    In your view, should Governors have tactical control over Federal 
military forces, including those in a title 10, U.S.C., active status 
and operating in their States? What is your rationale for this view?
    Answer. I do not believe Governors require the ability to exert 
tactical control over all military forces operating within their state 
when they are providing Military Support to Civil Authorities. 
Statutory authority currently exists whereby the President can appoint 
a title 10/title 32 Dual-Status Joint Task Force (JTF) Commander.\1\ 
The Dual-Status JTF Commander construct for command and control was 
successfully employed in 2004 for the Democratic and Republican 
National Conventions (DNC/RNC). It was also used for the G-8 Summit, in 
support of Customs and Border Patrol for Operation Winter Freeze, again 
for the 2008 DNC/RNC, and is currently being considered for the G-20 
Pittsburgh Summit. In many instances, the Dual-Status JTF Commander is 
the best option to ensure unity of effort and provide both the 
President (and/or the Secretary of Defense \1\) and the Governor with 
the ability to employ all types of military forces in a synchronized 
effort.
---------------------------------------------------------------------------
    \1\ Note: On 23 July 2004, approval authority for title 32, U.S.C. 
325, was delegated from the President to the Secretary of Defense.
---------------------------------------------------------------------------
    Federal forces are generally brought in to a State by the Federal 
Emergency Management Agency (FEMA) under the Stafford Act, which means 
Federal forces are in support of the Federal effort, which is in 
support of the state priorities. Thus, it is appropriate for Federal 
forces to take direction from FEMA to keep from diverging from the 
authorities' relationships as they exist in accordance with the 
National Response Framework.
    Governors currently have the authority to exert tactical control 
over National Guard forces in a State Active Duty or title 32 status 
and have the ability to request the assistance of Federal forces when 
the Governor believes such assistance is necessary, to include 
responses to terrorist acts and or public domestic emergencies. 
Available forces for such events would likely be placed under tactical 
control of the designated, JTF Commander, under operational control of 
the Commander, U.S. Northern Command, or possibly under tactical 
control of a designated title 10/title 32 Dual-Status JTF Commander. 
The designated commander, working with the Governor and the State's 
Adjutant General, would be able to provide the necessary support to 
restore order, save lives, and secure property as the situation 
dictates.
                               dwell time
    Question. For many military members, dwell time goals are not being 
met, and recent testimony suggests that dwell time will not improve 
appreciably over the next 12-18 months.
    In your view, what can be done to increase dwell time for both 
Active and Reserve component members, and when will these improvements 
be seen?
    Answer. An increase in the size of the Armed Forces and/or a 
reduction in overall military requirements will naturally improve 
dwell. The current programmed growth in capabilities needed to support 
ongoing operations, as well as the planned reduction in forces in OIF, 
will lead to improved dwell ratios in both the Active and Reserve 
components. As operational demand changes, we will continue to assess 
the impact to dwell time and make appropriate adjustments.
    Question. In your view, would additional Army end strength in 2010 
or 2011 improve dwell time ratios and reduce stress on the force, and 
if so, what numbers of Active and Reserve component members would be 
necessary?
    Answer. The additional 22,000 soldiers for the Army authorized by 
Congress as a temporary end strength increase will not improve dwell 
time. However, it will relieve unit stress by reducing the rapid and 
repetitive churn associated with personnel assignments, training, 
deploying, and resetting the force. We will continue to assess each 
Service's end strength in light of operational demand.
                   end strength of active-duty forces
    Question. In light of the manpower demands of Operation Enduring 
Freedom (OEF) and Operation Iraqi Freedom (OIF), what level of Active-
Duty personnel (by Service) do you believe is required for current and 
anticipated missions?
    Answer. The Services, Joint Staff, and OSD have looked at this 
impact and have brought forward their force structure recommendations. 
Both the Army and Marine Corps have planned end strengths of 547,000 in 
fiscal year 2012 and 202,000 in fiscal year 2011, respectively. This is 
consistent with the future demands expected to be placed on our ground 
forces. The Secretary of Defense reversed the Air Force's programmed 
reductions to be more in line with our future air demands. I believe 
the planned Air Force and Navy end strength levels of 330,000 and 
328,000, respectively are appropriate. We continue to assess 
requirements of the Active-Duty Force as we draw down in OIF and 
increase our operational presence in OEF. Under the President's 
Declaration of National Emergency, the Secretary of Defense has 
authorized a temporary increase of 22,000--which will increase manning 
strength and improve readiness both for units deploying to combat and 
for units resetting following deployments. I will continue to work with 
the Services to determine the right size force as current and 
anticipated missions adjust.
                            women in combat
    Question. The issue of the appropriate role of women in the Armed 
Forces is a matter of continuing interest to Congress and the American 
public.
    Does DOD have sufficient flexibility under current law to make 
changes to assignment policy for women when needed?
    Answer. The current law provides the Department sufficient 
flexibility to make changes to the assignment policy. Women in our 
Armed Forces continue to make tremendous contributions to our national 
defense. They are an integral part of the force and are proven 
performers in the operational environment and under fire. It is 
important to understand that DOD policies fully recognize that women 
are assigned to units and positions that are not immune from the 
threats present in a combat environment. In fact, women are assigned to 
units and positions that may necessitate combat actions--actions for 
which they are fully-trained and prepared to respond and to succeed.
    Question. Do you believe any changes in the current policy are 
needed?
    Answer. As an advocate for improving the diversity of our force, I 
believe we should continue to broaden opportunities for women. One 
policy I would like to see changed is the one barring their service 
aboard submarines.
                            wounded warriors
    Question. In congressional testimony on the fiscal year 2010 budget 
request, you stated that there is ``no higher duty for this Nation, or 
for those of U.S. in-leadership positions, than to care for those who 
sacrificed so much and who must now face lives forever changed by 
wounds both seen and unseen.'' You have taken an active role in 
advocating for services and support to the wounded and their families, 
including those suffering from PTSD and other mental health conditions.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. We have made good improvement in the care and treatment of 
the seriously ill and wounded, but there are still aspects of our 
Wounded Warrior care that are woefully inadequate--including in mental 
health, PTSD, traumatic brain injury (TBI), and in transitioning 
seriously ill and injured servicemembers.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. I count three. First, is our ability to innovate. I have 
seen remarkable improvements in our own care simply from an 
individual's or a unit's ability to adapt to new circumstances. 
Battlefield care and rehabilitative programs are obvious examples, but 
so, too, are improved practices at warrior transition units across the 
country, and more streamlined efforts to reduce to assign and 
compensate for disability ratings. We have begun to apply valuable 
lessons learned from across the services to improve both the efficiency 
and the effectiveness of our warrior transition programs, which now 
almost uniformly offer some sort of family outreach and support 
services.
    Second, our programs, thanks to Congress, are well-funded. We will 
continue to need this support.
    Third, there is a real sense of urgency here and an understanding 
that this is an institutional imperative. I am heartened by the 
attention being given to issues of warrior care and stress reduction 
across the force. Leaders are increasingly taking these challenges on 
as personal mandates, and that is having a very positive effect.
    Question. What are the weaknesses that need to be corrected?
    Answer. Let me highlight four areas that are in need of more 
improvement. First, we have not made as much progress as we should have 
in the area of mental health. I am deeply concerned by the rising 
suicide rate amongst active duty personnel. Evidence is mounting of 
increased mental and emotional stress among the families. There is 
still a stigma attached to the act of seeking mental health counseling, 
and that, too, is being felt by spouses who fear that by seeking such 
care, they will negatively impact the military career of their loved 
one.
    Second, we are only just beginning to understand the complexities 
of PTSD, which may take many forms and include many symptoms not 
generally obvious to even the most skilled practitioner. Many experts 
estimate that as many as 25 percent of all deployed troops suffer from 
PTSD or some type of TBI. Anecdotally, we hear from many family members 
who say they also experience PTSD-like symptoms. We simply must do a 
better job screening for and then treating PTSD, and that should 
include some sort of mandatory face-to-face screening before a member 
departs for home.
    Third, we have much more work to do on TBI. We need to better 
characterize the nature of TBI, particularly those defined as ``mild'', 
possibly by application of blast sensor technology. We need to create a 
better linkage of events to patient signs and symptoms. I repeatedly 
hear from soldiers and families about the benefits of alternative 
treatments, such as hyperbaric chambers and acupuncture, and yet it 
doesn't appear to me that the medical establishment has yet fully 
embraced these options. We need to do the quality medical studies to 
help sort out the value of these various alternative options. I also 
remain concerned about our ability to anticipate TBI damage by more 
accurately assessing one's vulnerability to long-term effects after one 
or more TBI incidents. Some say the magic number is three events; 
others say there is no magic number. My sense is that there is enormous 
expertise out there--such as the staff I met a few weeks ago at Boston 
VA medical center--who possess and explore new knowledge about this 
very real injury. I would like to see the United States tap into that 
expertise much more completely than we do today.
    Finally, we must improve the process of transitioning seriously ill 
and injured servicemembers. The Disability Evaluation System (DES) 
frequently promotes disability instead of maximizing ability. The 
system currently pushes our departing troops into Veterans 
Administration (VA) programs immediately upon retirement and/or 
separation with little lash-up between the two departments beforehand 
and even less education for the member as he or she makes that 
transition. I am working closely with the VA to streamline and improve 
this process, but institutional practices long established and codified 
in law make that effort very difficult indeed. A pilot program underway 
to speed up the assignment of disability ratings and payments shows 
real promise but must be accelerated. Additionally, we have a Joint 
DOD/VA team critically examining the DES from stem to stern to 
determine the next steps in revolutionizing the DES system, to 
ultimately promote ability vice disability.
    Question. How would you assess the effectiveness of the services 
provided by the Department as well as your own efforts to continually 
improve care to the wounded?
    Answer. Though improving, the Department's services are not yet 
where they need to be. To rectify this, I have made caring for Wounded 
Warriors and their families one of my top concerns and priorities. I 
established a permanent office on my staff to work with DOD, the 
Service branches, and nongovernmental organizations to leverage a 
broader network to address the myriad of issues related to the care of 
our wounded. Caring for those who have sacrificed so much is a sacred 
duty for this Nation, one which requires we redouble our efforts.
    Question. It is critical that senior uniformed military leaders 
have more insight and control into how medical resources are being 
applied.
    Answer. My vision is that our returning warriors--wounded or well--
successfully reintegrate upon return from war into the force and/or 
civil society. They should be able to find and hold rewarding jobs, 
access educational opportunities, and have the opportunity to find a 
home and raise their families. Those families must be well supported 
and able to assist that reintegration. This vision encompasses more 
than programs, it must also see communities supporting returning 
warriors and their families, and in turn being supported by DOD and the 
Department of Veteran Affairs--with all three working closely together. 
Our families of the fallen must be comfortable in the knowledge that 
the U.S. military will not forget them or their sacrifice, that it will 
instead make concerted efforts to ensure they receive all benefits 
entitled and all support and counseling required to lead positive and 
productive lives.
    Question. What is your expectation for casualties resulting from 
operations in Afghanistan, both in terms of numbers and the adequacy of 
resources to support their care, transportation and recovery?
    Answer. I believe we must all accept the fact that, as we better 
resource this fight and as we focus more on classic counter-insurgency 
operations (as opposed to simply counterterror operations), we will see 
higher casualty rates among U.S. forces. Securing the population will 
remain a difficult and dangerous mission. General McChrystal has been 
provided everything he has requested in terms of medical care and 
support capabilities, but we will continue to monitor his needs very 
closely. If confirmed, this will remain a high priority for me.
                      rising costs of medical care
    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive.''
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. The current trends and dramatic cost growth are not 
sustainable. Our men and women in uniform make great sacrifices for 
their Nation, and their personnel benefits, to include compensation and 
health care programs, have always been a priority for me. The continued 
support of Congress, and the Nation, is greatly appreciated by our 
military servicemembers.
    If confirmed, I will continue to foster a health care benefit 
system that is flexible, effective, and cost-efficient to serve the 
needs of our people--military members, retirees, and their families--
who are my number one priority. Projected rising costs of medical care 
will require either an increase in the Department's top-line or the 
acceptance of additional risk in warfighting capability.
    If confirmed, I look forward to continuing our efforts with 
Congress and DOD to ensure military personnel can serve their nation 
with the knowledge that their health care benefits are secure. In this 
time of war, we are committed to providing the best care possible for 
our forces that are returning with combat injuries. I will also 
continue to support close cooperation between DOD and the Department of 
Veterans Affairs to improve care for our troops and for those who have 
left the Service, where much more needs to be done.
    Question. If confirmed, what actions would you initiate or 
recommend to the Secretary to mitigate the effect of such costs on the 
DOD top-line?
    Answer. If confirmed, I will continue to support the Secretary of 
Defense, as he leads the Department's ongoing effort to promote 
efficiency in both our direct health care and purchased health care 
programs.
    The rising cost of health care is clearly an issue we need to work 
and will seek the support of Congress. Maintaining the life long 
continuum of care is especially critical with the ongoing operations in 
the Middle East. I fully support our people, who are this Nation's 
greatest asset. The state of their health and well-being defines the 
effectiveness of every dollar spent on acquisition, operations, and 
sustainment.
                       homosexual conduct policy
    Question. President Obama has made it clear that he intends to work 
with the military and with Congress to repeal the policy regarding 
homosexuality in the Armed Forces, commonly referred to as ``Don't Ask, 
Don't Tell.'' You have stated that you have begun discussions of this 
issue with other senior military leaders.
    What is your view on repealing or changing this policy?
    Answer. Don't Ask, Don't Tell is commonly referred to as a DOD 
policy but it is Public Law 103-160 910 (U.S.C. 654). Therefore, my 
view is quite simple: DOD policy must comply with the public law and 
only Congress and the President can change the law. My responsibility 
is to guide the Armed Forces of the United States consistent with the 
law.
    At the behest of Secretary Gates, DOD legal counsel are currently 
examining whether the law allows a more flexible application of policy. 
I concur with the Secretary and fully support his efforts in that 
regard.
    In determining whether and how to change the policy, we must act in 
accordance with law and in a thoughtful and deliberate way, taking into 
account the health and integrity of the force.
    Question. What is your understanding of the views of the Service 
Chiefs and combatant commanders on this policy?
    Answer. I cannot speak for the Service Chiefs or combatant 
commanders, but I am confident that they share my desire for a 
measured, deliberate approach to any change required by law.
    Question. In your view, would changing this policy have an adverse 
impact on good order and discipline in the military?
    Answer. Any change to the law would require sound policy revision 
and leadership. Like any significant overhaul of military personnel 
policy, we must carefully consider its impact on military readiness. 
Whatever the decision, we will follow the law and remain focused on 
supporting our troops in--and preparing for--combat.
    Question. If the policy is changed by Congress, how lengthy a 
phase-in period would you recommend?
    Answer. The truth is that I just don't know, and I would need some 
time to study this before coming back to you with an answer.
                       national military strategy
    Question. There continues to be much discussion about threats the 
United States will face in the coming decades, including radical Islam, 
the so-called ``long war'' against terrorism, and the growing potential 
for confrontations with a range of violent non-state actors. There are 
also pressures to take a broader view of the threat to U.S. national 
security from potential political, economic, and social instability 
caused by environmental catastrophes brought on by global warming or 
natural disasters. The 2004 National Military Strategy is due for 
another update and will be guided and informed by a range of strategic 
reviews including the 2008 National Defense Strategy, the 2009 
Quadrennial Roles and Missions Review, and the pending Quadrennial 
Defense and Nuclear Posture Reviews.
    What is your assessment of the current 2004 National Military 
Strategy with respect to its treatment of threats, opportunities, 
strategies, and capabilities?
    Answer. My 2009 annual risk assessment report to Congress provided 
a current assessment of the threats, opportunities, strategies, and 
required capabilities that will inform our revision of the 2004 
National Military Strategy. If confirmed, I intend to issue an updated 
version of the National Military Strategy in 2010.
    Question. What major changes, if any, with respect to threats, 
opportunities, strategies, or capabilities do you anticipate will be 
made in the next update to the National Military Strategy?
    Answer. To address the complex and dynamic strategic environment, 
we are working to update the National Military Strategy in parallel 
with the development of the National Security Strategy and the 
Quadrennial Defense Review. The evolving strategy will continue to 
emphasize the need to protect the homeland, prevail in current 
conflicts, promote cooperative security with partner nations, and 
prevent future conflicts by preparing for a wide range of 
contingencies. To execute this strategy, we need to sustain a balanced 
Joint Force with the capability and capacity to defeat hybrid 
combinations of conventional, irregular, and catastrophic threats 
across the full spectrum of conflict and in multiple locations. Toward 
that end, I am particularly concerned that we reset, reconstitute, and 
revitalize the Joint Force to defend the Nation, deter potential 
adversaries, and assure our allies.
                           roles and missions
    Question. Since the end of the Cold War, the Department has 
considered and reconsidered its capabilities, requirements, technology 
acquisition strategies, organizational structure, and forces mix. 
Fundamental to change within the Armed Forces is agreement on the 
appropriate distribution of roles and missions among the military 
departments and several independent agencies. The last two Quadrennial 
Defense Reviews have acknowledged major shifts in the strategic 
environment facing the Nation, but recommended no changes to roles and 
missions and only minor adjustments to the form and size of the defense 
establishment. The 2009 Quadrennial Roles and Missions Review also 
recommends no major adjustments to the Services, but acknowledges the 
need to improve capabilities and capacities to conduct irregular 
warfare, cyber security, intra-theater airlift, unmanned aircraft for 
intelligence, surveillance, and reconnaissance, and interagency 
coordination.
    Are you satisfied that our defense establishment is correctly 
structured, that roles and missions of the Military Departments are 
appropriately distributed, and that U.S. forces are properly armed, 
trained, and equipped to meet the security challenges the Nation faces 
today and into the next decade?
    Answer. With your support, I believe the defense establishment can 
remain capable and ready to address the threats that our Nation faces. 
There are areas such as irregular warfare, cyber security, intra-
theater airlift, unmanned aircraft for intelligence, surveillance, and 
reconnaissance, and interagency coordination that need continued focus. 
The recent work completed during the 2009 Quadrennial Roles and Mission 
Review offered the Joint Chiefs an opportunity for comprehensive review 
of the distribution of roles and missions. As we increase capabilities 
in the focus areas, we will continue to evaluate the best defense 
structure to ensure we successfully arm, train and equip our forces to 
meet challenges both today and in the future. The wars in Iraq and 
Afghanistan have heavily immersed our forces, especially our ground 
forces, in irregular warfare. We lack the balance that is required for 
full spectrum training, equipping, and warfighting. As we reset the 
force, we need to regain that balance while planning for the future.
    Question. In your view, what changes, if any, are needed in the 
distribution of core missions, competencies, or functions between the 
Services or Special Operations Forces (SOFs)?
    The current distribution of core missions, competencies, and 
functions meets the needs of the department and provides the necessary 
distribution among the Services and SOFs. During the 2009 Quadrennial 
Roles and Mission Review, the Joint Chiefs and the Commander of Special 
Operations Command (SOCOM) worked closely to review the distribution of 
core missions, competencies, and functions and concluded no significant 
change was warranted. Those efforts captured the current distributions 
and codified them in our extensive review and rewrite of DOD Directive 
5100.1, which governs the functions of DOD and its components.
                            strategic depth
    Question. At this moment, the vast majority of U.S. ground forces 
are fully committed to or exclusively preparing for operations in Iraq 
and Afghanistan.
    What is your assessment of the current readiness of our Armed 
Forces, and particularly our ground forces, for worldwide commitment to 
any contingency and any level of operations?
    Answer. The Armed Forces are meeting all our current mission 
demands. DOD's persistently high operations tempo and OIF/OEF force 
requirements continue to stress our ability to reset, train, and 
maintain readiness for the full spectrum of operations. Although our 
ground forces are achieving ``just in time'' readiness, current 
commitments significantly impact our ability to respond to additional 
contingencies. We retain considerable air and maritime capability to 
deter aggression and continue to monitor our capacity to respond 
immediately to any emerging contingency.
    Question. What in your view is the level of strategic risk the 
Nation faces given the lack of depth in our ground forces?
    Answer. I believe the Armed Forces can execute the missions of the 
National Military Strategy, but at an elevated level of risk. We will 
prevail in the end, but it will take additional time and resources to 
deploy trained and ready ground forces for any new missions outside of 
our current requirements.
    From a purely military perspective, continued deployments, 
accelerated equipment usage rates across the Services and high 
operational tempo all increase risk. None is likely to subside in the 
near term. I am confident that our Armed Forces remain capable of 
defeating all who threaten our Nation's security.
    Question. What in your view are the three most important actions we 
should take immediately to mitigate and correct the lack of strategic 
depth?
    Answer. To mitigate this risk we need to: (1) complete the growth 
of new units in the Army and Marine Corps, (2) increase the dwell time 
for units to train for different missions, and (3) reset and 
reconstitute a balanced Joint Force that can quickly adapt to a wide 
range of contingencies.
                             transformation
    Question. Please describe the progress that the Department, 
including the JCS and the Joint Staff, has made in transforming the 
Armed Forces.
    Answer. While I am pleased with the progress made in transforming 
our Armed Forces for the threats we face and will face in the future, 
particularly in time of war, I also recognize more is left to do. We 
must continue to shift the balance of our capabilities to meet the 
irregular, disruptive, and potentially catastrophic security challenges 
of the 21st century while maintaining our ability to defeat any 
traditional challenge that may confront us.
    As stated in my January 2009 Capstone Concept for Joint Operations, 
the military should shift its focus to adopt the following common 
operating precepts:

    <bullet>  Achieve and maintain unity of effort within the Joint 
Force and between the Joint Force and U.S. Government, international 
and other partners.
    <bullet>  Plan for and manage operational transitions over time and 
space.
    <bullet>  Focus on operational objectives whose achievement 
suggests the broadest and most enduring results.
    <bullet>  Combine joint capabilities to maximize complementary 
rather than merely additive effects.
    <bullet>  Avoid combining capabilities where doing so adds 
complexity without compensating advantage.
    <bullet>  Drive synergy to the lowest echelon at which it can be 
managed effectively.
    <bullet>  Operate indirectly through partners to the extent that 
each situation permits.
    <bullet>  Ensure operational freedom of action.
    <bullet>  Maintain operational and organizational flexibility.
    <bullet>  Inform domestic audiences and influence the perceptions 
and attitudes of key foreign audiences as an explicit and continuous 
operational requirement.

    In accordance with the Unified Command Plan, U.S. Joint Forces 
Command (JFCOM) is responsible to me for leading and coordinating Joint 
Concept Development and Experimentation (JCD&E) activities. My Joint 
Staff supports JFCOM in their transformation efforts by working in 
partnership with combatant commands and Services to facilitate and 
advocate their concept development and experimentation efforts.
    The Joint Staff has increased the focus on rapid transition, to 
ensure the results of these concepts and experiments are fielded more 
rapidly to the warfighter.
    In addition, Joint Staff has continued to champion the Joint Staff 
developed Joint Capability Areas (JCA) framework and lexicon as an 
integral part of the capabilities based planning process. Through our 
efforts, JCAs have become the common language to discuss and describe 
capabilities and increase transparency across related DOD activities 
and processes.
    Question. If confirmed, what would be your goals regarding 
transformation in the future?
    Answer.

    <bullet>  We must recruit and retain the high quality of our Joint 
Force and rapidly reset that force to meet the security challenges of 
the 21st century.
    <bullet>  Our future military concepts all reflect the need for 
addressing future security challenges as a unified, interagency team. 
One of my primary goals would therefore be for DOD to partner with 
other U.S. agencies to routinely achieve national security objectives 
with whole-of-government approaches, now and in the future.
    <bullet>  We must continue to build relationships with multi-
national partners and potential partners, laying the foundation for 
future joint operations and shaping the environment for those 
operations.

    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. I believe the Joint Staff should continue to pursue new 
operational and organizational initiatives that enable our forces to be 
more effective. We should also aggressively address and solve issues 
that fall in or across the seams between the combatant commands, while 
reducing those seams, and work with the Services to ensure our best 
ideas, and technologies are made rapidly available to our warfighters, 
now and in the future.
          ``institutionalizing'' support for irregular warfare
    Question. A major objective of the Department's fiscal year 2010 
budget request is to ``rebalance'' the Department's investments across 
the spectrum of conflict by increasing emphasis on lower-end, 
irregular, counterinsurgency, and stability type operations. Secretary 
Gates has stressed the need for the Department to ``institutionalize 
and finance'' the support necessary for the irregular warfare 
capabilities that have been developed over the last few years and will 
be needed in the future.
    What, in your view, does it mean to ``institutionalize'' support 
for irregular warfare capabilities in the Defense Department?
    Answer. I believe General Mattis', Commander, JFCOM, 11 March 2009 
memo to Secretary Gates on ``institutionalizing Irregular Warfare (IW) 
as a core competency of the Armed Forces while maintaining a balance 
with other required capabilities'' and his seven anchor points provides 
a useful framework:

          (1) Establish National Center for Small Unit Excellence to 
        ensure IW superiority.
          (2) Direct an outside review (e.g., Red Team) of the Defense 
        Planning Scenarios (DPS) for appropriate inclusion of hybrid, 
        complex threats.
          (3) Direct Defense Intelligence Agency (DIA) to produce an 
        annual, unclassified, update on the IW/hybrid threat.
          (4) Offer to run an IW/hybrid wargame for State and the 
        interagency.
          (5) Use our Professional Military Education (PME) program as 
        a strategic asset.
          (6) Direct process to reduce JFCOM-identified high demand, 
        low density forces through changes in organizational and 
        personnel policies.
          (7) Direct a fully resourced effort to immediately develop 
        first class simulators for IW training.

    My staff has worked with OSD, Department of State, combatant 
commands, and Services to plan a way ahead for each of these 
activities, many of which are near completion.
    As well, results of this year's Global Force Management Process 
informed the ongoing Quadrennial Defense Review, making recommendations 
to resolve capacity shortfalls, including those shortfalls in irregular 
warfare. These recommendations for institutionalizing IW enhancements 
were captured in the fiscal year 2011-2015 Guidance for the Development 
of the Force Update.
    Question. What are the obstacles, if any, to institutionalizing 
this kind of support, and what will be necessary to overcome those 
obstacles?
    Answer. I believe there are two obstacles: resourcing and changing 
mindsets. Regarding resourcing, for example, we look forward to working 
with Congress to fulfill Resource Management Decision 802's intent to 
establish the National Program for Small Unit Excellence \2\ (NPSUE) so 
that the Joint Irregular Warfare Center, led by JFCOM, is adequately 
funded to support the mission of the NPSUE.
---------------------------------------------------------------------------
    \2\ National Center for Small Unit Excellence was renamed National 
Program for Small Unit Excellence after receipt of General Mattis' 11 
March Anchor Points Memo.
---------------------------------------------------------------------------
    While we have progressed, I believe we have more work to do in 
changing mindsets. We have made great strides within the Services to 
share capabilities, and we need to continue in that direction to ensure 
that all new capabilities we develop/program for are truly joint. 
Irregular Warfare capabilities must be joint and Services must work 
with each other to identify training and simulation tools that can 
provide cross-functionality. My staff as well as OSD continue to reach 
out to the interagency to support our common missions. We collaborate 
closely with the Departments of State and Homeland Security and are 
expanding our efforts with other agencies. The goal is to leverage and 
compliment each other's capabilities and work together to build joint 
irregular warfare capabilities that are value added to all.
    Question. While program changes may be necessary for such 
rebalancing, they are unlikely to prove sufficient. The greater 
challenge may prove to be changing military culture, attitudes, 
management, and career path choices, for example through adjustments to 
organization, training, doctrine, and personnel policies.
    In your view, what are the most important changes, if any, that 
might be required, to complement programmatic changes, in support of 
the further institutionalization of capabilities for irregular warfare?
    Answer. In my view, our progress in executing some of the Irregular 
Warfare anchor points illustrates the sort of changes needed. The most 
important considerations that could complement programmatic decisions 
in support of the further institutionalization of capabilities for 
irregular warfare are:

    <bullet>  An outside review (e.g., Red Team) of USD-Policy 
developed Defense Planning Scenarios (DPS) to ensure the family of 
scenarios is appropriately balanced to address the future threat 
environment, specifically, hybrid, complex threats.
    <bullet>  A DIA-led annual, unclassified, update on the IW/hybrid 
threat through direct collaboration with JFCOM, J2; the Joint Irregular 
Warfare Center; the Defense Intelligence Agency; and the National 
Ground Intelligence Center.
    <bullet>  An IA/hybrid wargame for the interagency, specifically, 
Department of State, to generate valuable insights and inspire a 
comprehensive perspective essential to meeting the complex security 
challenges we face.
    <bullet>  Use our Professional Military Education Program as a 
strategic asset to improve synchronization across all military 
departments in education and training with our foreign partners.
                                  iraq
    Question. Diplomatic and military leaders in Iraq have cautioned 
that security gains over the last year remain fragile and are still 
subject to reversal.
    What is your assessment of the stability of security gains and 
reduced violence?
    Answer. Security incidents throughout Iraq continue to show a 
decreasing trend of violence in 2009 and remain at the lowest levels in 
5 years. However, underlying sources of instability have yet to be 
resolved. Upticks in high profile attacks targeting civilians during 
July and August have not affected the overall trend of violence seen 
this year, but have caused an increase in civilian casualties. We are 
carefully monitoring the full effects of the U.S. withdrawal from 
cities, villages, and other locales and assessing the impact on the 
overall stability and sustainability of security gains in Iraq.
    Question. What, in your view, are the greatest threats to these 
gains and what are the prospects of these threats materializing?
    Answer. There are a number of underlying sources of instability 
that the Iraqi Government must overcome. Immediate challenges include 
Arab-Kurd tensions, Shia-Sunni rivalries, violent extremists groups, 
and malign Iranian influence.
Arab/Kurd Tensions
    Arab-Kurd tensions remain the most dangerous threat to Iraq. 
Confrontations between the Iraqi security forces (ISF) and Peshmerga--
as well as aggressive political rhetoric on both sides--continue to 
raise tensions. Without a concerted effort to resolve issues by both 
the Government of Iraq and Kurdish Regional Government and continued 
U.S. engagement, this situation has the potential to directly impact 
our security gains.
Shia-Sunni Rivalries
    Continued integration of Sunni, primarily Sons of Iraq (SoI), into 
the Iraqi Government is key to mitigating Sunni sense of 
disenfranchisement. Failure by the Government of Iraq to continue 
progress on reconciliation issues could result in a return to Sunni-
Shia violence.
Countering Violent Extremist Groups
    The ability of violent extremist groups, most notably al Qaeda-in-
Iraq (AQI), to conduct attacks has been severely degraded but not 
completely destroyed. The continued maturation of the Iraq security 
forces is essential to countering violent extremist groups in Iraq.
Malign Iranian Influence
    Iran poses a significant challenge to Iraq's long-term stability 
and political independence. The Government of Iraq, through reciprocal 
visits with Iran, has sent tough messages warning Iran against 
interference in Iraqi politics, while still encouraging improved 
bilateral relations, economic cooperation, and cultural/religious 
exchanges.
    Question. What do you believe are the most important remaining 
steps that the United States needs to take in Iraq?
    Answer. The most important near-term step the United States must 
take is assisting Iraq in conducting legitimate, free, and fair 
elections and seating the new government following the elections. 
Additionally, the United States must assist the ISFs with filling 
equipment and training gaps to ensure they are capable of meeting 
internal threats by the end of 2011. Finally, the United States must 
transition from a DOD to State Department led.
    Question. What do you believe are the most important remaining 
steps that the United States needs to take in Iraq?
    Answer. The most important near-term step the United States must 
take is assisting Iraq in conducting legitimate, free, and fair 
elections and seating the new government following the elections. 
Additionally, the United States must assist the ISFs with filling 
equipment and training gaps to ensure they are capable of meeting 
internal threats by the end of 2011. Finally, the United States must 
transition from a DOD to State Department lead mission and continue to 
build a long-term relationship with Iraq.
    Question. What do you believe will induce Iraqi political leaders 
to make the political compromises necessary for a political solution? 
What leverage does the United States have in this regard?
    Answer. Dialogue and engagement between political actors will be 
essential for them to reach a political solution on critical unresolved 
issues. We can play an important role in this. Increasingly, our 
leverage stems from our ability to play a mediation and coordination 
role on key, unresolved issues. A lasting political solution is also 
dependent on all groups actively participating in the electoral and 
political process. All indicators suggest that this will continue to be 
the case. To further encourage this, using the Strategic Framework 
Agreement, whereby we offer assistance to Iraq in the areas of 
education, agricultural capacity, local governance programs, and 
assisting Iraq with strengthening the rule of law, we can reinforce to 
political leaders in Iraq that political solutions to their problems 
are more enduring than military ones.
    Question. Secretary Gates has indicated that if security conditions 
continue to improve we may be able to accelerate the withdrawal of U.S. 
forces.
    Do you agree with his assessment of the security situation and the 
possible acceleration of the troop withdrawal?
    Answer. Yes. A stable security environment is the primary factor in 
any decision to accelerate the drawdown in Iraq. Our responsible 
drawdown plan includes options to accelerate the redeployment of 
certain units should the security environment allow it. Generals 
Odierno and Petraeus will continue to make recommendations to the 
Secretary of Defense and I based on the security situation.
    Question. What is your assessment of Iraqi elections as indicators 
of increasing or decreasing stability and security in Iraq? Are there 
other indicators that are better barometers of improving or 
deteriorating stability conditions?
    Answer. I believe the elections in Iraq are excellent indicators 
for determining stability conditions in Iraq. Recent provincial 
elections in Iraq were a testament to the determination of the Iraqi 
Government and the Iraqi people to express their will through the 
electoral process--choosing ballots over bullets. Most notably, Sunni 
Arabs actively re-engaged the electoral process, helping to redress 
their earlier under-representation on provincial councils. General 
Odierno rightly assesses that the national elections timeframe will be 
a period of heightened risk and vulnerability, when AQI and other 
extremist groups may attempt to exploit ethno-sectarian rivalries.
    As for other indicators of improving or deteriorating conditions, 
Arab-Kurd tensions will need to be closely monitored, particularly 
along the disputed territories. The overall level of violence and 
number of large-scale attacks are important because it both reflects 
AQI and ISF capabilities, and affects the Iraqi public's confidence in 
the ISFs.
    Question. An important aspect of the improved security conditions 
in Iraq is the improved capability of the ISFs. However, press reports, 
following a recent series of high profile attacks in Mosul and Baghdad, 
suggest that the ISFs are not ready to assume full responsibility for 
the security of their country.
    What is your assessment of the overall capability and reliability 
of the ISFs?
    Answer. Based on current conditions, the ISFs are ready to handle 
responsibilities for security in the cities and urban areas. We are in 
the assessment phase in Baghdad, Mosul, Kirkuk, and Diyala to determine 
sustainability of the withdrawal in those localities.
    Operational readiness continues to improve for both Ministry of 
Defense forces and the Ministry of Interior. With U.S. assistance in 
the development and fielding of key enablers, I believe the ISFs will 
be capable of handling internal security, to include counter-insurgency 
operations, by the time U.S. forces depart in 2011.
    Question. In your view, what are the enduring challenges or threats 
to the establishment of reliably professional and capable ISFs?
    Answer. One of the most significant challenges facing the ISFs is 
budget shortfalls. Both the Ministry of Defense and Interior face 
extreme budgetary shortfalls, which have affected the growth of both 
personnel and equipment. Another significant challenge is maintaining 
an ISF that is non-sectarian in both actions and perception. Currently 
public confidence remains moderately high in the ability of the ISFs to 
secure Iraq and the majority of the public views the ISFs as a non-
sectarian entity.
    Question. What support should the United States be prepared to 
provide to the ISFs beyond the end of the U.S.-Iraq Security Agreement 
in December 2011?
    Answer. Operational readiness continues to improve for both the 
Ministry of Defense forces as well as the Ministry of Interior. With 
U.S. assistance in the development and fielding of key enablers, I 
believe the ISFs will be capable of handling internal security, to 
include counter-insurgency operations, by December 2011 while setting 
the conditions for the Iraqis to continue the development and growth of 
their security forces.
    We are working very closely with the State Department to draft a 
framework for U.S. support to the ISFs in 2012 and beyond. This 
framework may include technical assistance and Foreign Military Sales 
through an Office of Security Cooperation. Ultimately, our level of 
support will depend on agreements reached between our government and 
the Government of Iraq.
    Question. What is your assessment of security conditions in those 
provinces and cities where ISFs have already assumed responsibility for 
maintaining security?
    Answer. ISFs have assumed responsibility for maintaining security 
in all of the provinces and cities as of June 30, 2009. For the most 
part, they have handled themselves professionally and in a non-
sectarian manner and overall security incidents in Iraq have shown a 
decreasing trend. However, I am concerned about recent high profile 
attacks that have resulted in greater civilian casualties, particularly 
in Baghdad and Mosul. There is the potential that if these types of 
attacks continue, the sectarian violence that plagued Iraq in 2006 and 
2007 could return. Iraq's leaders continue to denounce these attacks 
and vow not to let them trigger renewed sectarian violence. That is 
encouraging.
    Our military forces continue to work closely with the ISFs to help 
them stop future attacks by encouraging them to take aggressive and 
proactive security measures. We are also helping them reassess their 
force protection measures to reduce vulnerability to these types of 
attacks. In addition, our forces in Iraq continue to conduct joint 
counterterrorism operations, share actionable intelligence, and provide 
the necessary enablers to help the ISFs safeguard their citizens.
    Question. What is your assessment of the infiltration or the risk 
of infiltration of ISFs by sectarian militias, AQI, and Iranian agents?
    Answer. Though difficult to assess, there is currently no reporting 
suggesting widespread infiltration by sectarian militias, AQI, or 
Iranian agents into ISFs. Both the Government of Iraq and U.S. forces 
recognize the inherent risk that such actors could infiltrate the ISFs 
and will continue to monitor the issue.
    Question. The Government of Iraq has assumed responsibility for the 
approximately 85,000 SoI throughout Iraq. There are enduring problems, 
however, with the Government of Iraq's ability to pay SoI salaries as 
promised, continue to integrate a portion of them into the security 
forces, and assist in transitioning the remaining SoI into civil or 
private employment.
    What is your assessment of Iraqi progress in implementing the 
integration of the SoI into the ISFs or placing them in civil or 
private jobs?
    Answer. Despite some obstacles, SoI integration is moving forward, 
albeit slower than originally planned. In October 2008, the Government 
of Iraq began to pay and exercise responsibility for the SoI. This was 
an important first step since it demonstrated to the Iraqi Sunni 
community that the Government of Iraq recognized the security 
contributions of the SoI. There now remain 86,000 Iraqis in the SoI 
program. There have been problems in the past with late payroll 
disbursements but we have worked closely with the Iraqi leadership to 
overcome those issues. Another friction point is the perception by the 
Sunni population that the ISFs were targeting some of the SoI 
leadership based on sectarian agendas. We worked closely with the 
Government of Iraq and the SoI leadership on this issue and these types 
of incidents have declined significantly.
    The Government of Iraq's goal is to ensure that all of the SoI 
receive long-term government employment. The plan is for 20 percent of 
the SoI to transition into the ISFs and 80 percent of the SoI to 
transition to non-security government jobs. The Government of Iraq 
continues to move forward towards meeting those goals, albeit slowly. 
To date, they have transitioned approximately 13,000 SoI into security 
related jobs but only 6,000 into non-security jobs. The rate of 
integration of SoI is not on pace to meet the Government of Iraq's 
stated goal of transitioning all SoI by the end of 2009 and could 
undermine Sunni confidence in the Government of Iraq.
    We continue to work with the Government of Iraq to expand SoI 
government employment opportunities while ensuring the SoI are paid in 
a timely and accurate manner. We stress that this is critical to 
preventing the disenfranchisement of the Sunni community and will 
strengthen national unity.
    Question. How likely are more confrontations between ISFs and SoI 
groups? What should U.S. forces do to reduce this risk?
    Answer. In the past, ISFs targeting of SoI leaders previously 
threatened to undermine Sunni confidence in the Government of Iraq and 
U.S. efforts overall. Although there were some instances of targeting 
SoI leaders, this has been largely abated in recent months. Engagement 
by key U.S. leadership has been essential in ensuring Government of 
Iraq continues its reconciliation commitments to the SoI. Continued 
engagements by U.S. forces will remain the key to reducing the risk of 
future ISFs/SoI confrontations.
    Question. What is your assessment of Muqtada al-Sadr's intentions 
and capabilities through the rest of this year, especially with respect 
to the district and parliamentary elections and the completion of the 
U.S. combat mission by August 2010?
    Answer. I believe we will need to continue to watch how Muqtada al-
Sadr and his followers respond to the electoral results. For now, there 
are signs that the Sadrists are actively engaged in the political 
process and intend to participate in the parliamentary elections. The 
30 June withdrawal of U.S. forces from Iraqi cities removed some of the 
energy associated with Sadr's militant faction. Assuming a peaceful 
transition of the national government occurs, and the Sadrists remain 
engaged in the political process, Sadr and his political movement will 
not benefit from inciting violence.
    Question. How would you characterize the level of success achieved 
against AQI?
    Answer. I would characterize the level of success achieved against 
AQI as positive; however, AQI has not been defeated and remains 
dangerous. ISFs and U.S. targeting continues to pressure AQI's ability 
to direct and carry out attacks. Security operations in Basrah, 
Baghdad, Ninewa, Maysan, and Diyala have produced encouraging results 
that further degraded the capabilities of AQI. Iraqi forces have 
extended control over more areas of Iraq and on Government of Iraq 
operations have severely degraded AQI activities, finances, and supply 
networks, leading to the capture of several high-value individuals. 
Extensive counterinsurgency operations in Mosul and Diyala have 
continued to pressure AQI networks and clear areas that had been AQI 
strongholds. Although Iraq has achieved progress, AQI retains a limited 
capability to conduct high profile attacks targeting civilians and 
ISFs, primarily in mixed urban areas such as Baghdad, Mosul, and Kirkuk 
as well as Diyala province in an attempt to discredit the Government of 
Iraq and ISFs and incite sectarian violence--as evidenced by the recent 
high profile attacks in Ninewa and Baghdad. In the upcoming months, AQI 
may attempt to take advantage of changes in the political and security 
environment to reassert its presence in some areas of Iraq. AQI remains 
the primary instigator for ethno-sectarian violence, and it will seek 
to capitalize on Sunni-Shia and Arab-Kurd tensions.
       drawdown in iraq and troop levels/rotations in afghanistan
    Question. What is the relationship between the pace of our force 
drawdown in Iraq and the pace of our force increase in Afghanistan? In 
other words, will an accelerated drawdown of forces in Iraq improve the 
readiness and availability of additional forces needed in Afghanistan?
    Answer. As forces drawdown in Iraq, those forces will become 
available to support other global requirements, including operations in 
Afghanistan. I will continue to work with the Service Chiefs and 
combatant commanders to determine the proper force size and composition 
necessary to support the commanders in Iraq and Afghanistan in order to 
ensure that current and anticipated missions are supported.
    Question. How does the withdrawal of U.S. forces from Iraqi cities 
this summer impact the availability of forces for deployment to 
Afghanistan?
    Answer. The withdrawal of forces from Iraqi cities this summer does 
not directly affect the ability of forces to deploy to Afghanistan. The 
pace for the withdrawal of forces from the cities is linked to the 
security agreement with Iraq and the overall progress by the Government 
of Iraq to provide for its own security requirements. If Iraqi security 
continues to improve, as verified by General Odierno and Ambassador 
Hill, then our force drawdown should proceed as planned. We will 
continue to monitor and assess the requirements in both Iraq and 
Afghanistan to ensure that the force size and composition are matched 
to mission requirements.
    Question. What considerations will be factored into decisions 
regarding whether (and if so, what kind and how much) U.S. military 
equipment currently in Iraq will be transferred to the ISFs?
    Answer. Operational readiness of U.S. forces and the ability of 
ISFs to achieve the essential, sustainable capabilities to maintain 
security after the departure of U.S. forces in December 2011 will be 
the drivers. We continue to define the requirement so the exact types 
and numbers of equipment are still being determined; however, our goal 
is to ensure the ISF has a foundational ground defense capability to 
maintain internal security and stability with a credible, initial 
deterrence against external conventional threats. Additionally, they 
need to maintain maritime security and sovereignty of Iraqi airspace.
    Question. How should the readiness requirements of the Services for 
non-excess defense articles currently in Iraq be addressed as part of 
this transfer determination process?
    Answer. We have a process to weigh the impacts to Service readiness 
and make decisions accordingly. The Joint Staff, Military Services, 
National Guard Bureau, Central Command (CENTCOM), Multi-National 
Forces-Iraq and Multi-National Security Transition Command-Iraq are all 
actively involved in the process.
    We are carefully considering readiness of U.S. forces, including 
the Reserve component. Some of the equipment required by the ISF is 
excess to U.S. forces; however, U.S. forces have a need for non-excess 
equipment to fulfill worldwide requirements. It is a matter of weighing 
risks and making informed decisions. Therefore, all those organizations 
involved in the process will weigh the risks and make collective 
recommendations, accordingly.
                     afghanistan-pakistan strategy
    Question. The strategy announced by the President in March sets out 
as its goal ``to disrupt, dismantle, and defeat al Qaeda in Pakistan 
and Afghanistan, and to prevent their return to either country in the 
future.''
    In your view, can this strategic goal be achieved through a purely 
military solution? If not, what other instruments of power are needed 
to achieve this goal?
    Answer. No. There is not a purely military solution to achieving 
the President's strategic goal. All elements of national power--
diplomatic, informational, military, and economic--must be brought to 
bear. This requires better civil-military coordination and a 
significant change in the management, resources, and focus of our 
foreign assistance. Our approach to defeating al Qaeda must be one that 
builds trust with Afghans and Pakistanis while applying all instruments 
of power. We require these diverse instruments to deny sanctuary to al 
Qaeda and the Taliban now, and to generate a stable and secure 
Afghanistan capable of denying al Qaeda return after the withdrawal of 
our combat forces, and while we sustain partnership and commitment to 
political and economic development in that nation.
    Question. What steps do you believe are required to prevent al 
Qaeda from returning to Afghanistan in the future?
    Answer. We are working with the Afghan Government to build its 
capacity to secure its people from Taliban intimidation, to provide an 
environment for required economic growth, and to set the conditions for 
an education system that will enhance the lives of people well into the 
future. A critical component of this effort is to increase the capacity 
of Afghan National Security Forces (ANSF) to secure its own people. We 
also support Afghan counterterrorism measures that target specific al 
Qaeda members and support networks. As the Afghan Government 
strengthens its ties to its people it will help set conditions that 
prevent the return of al Qaeda extremists.
    Question. Is defeating the Afghan Taliban and militant extremists, 
other than al Qaeda, who are attacking Afghanistan from safe havens in 
Pakistan a necessary component of the President's strategy?
    Answer. Yes. Defeating the Afghan Taliban and militant extremists 
operating out of Pakistan, whether directly linked to al Qaeda or not, 
is an essential component of the President's regional strategy. As the 
President stated, the objective of the strategy is to ``disrupt, 
dismantle, and defeat al Qaeda and their extremist allies in Pakistan 
and Afghanistan,'' and ``prevent their return to either country in the 
future . . . ,'' we must separate al Qaeda operatives from their key 
allies. While a complex web of groups, the Afghan Taliban are 
interwoven with al Qaeda in many ways. Thus, we must work with Pakistan 
and our other partners to disrupt and defeat the Afghan Taliban, to 
advance a stable and secure Afghanistan and to inhibit the spread of al 
Qaeda influence in Afghanistan and across the region.
    Question. Is defeating the Pakistan Taliban a necessary component 
of the President's strategy?
    Answer. Yes. Defeating the Pakistan Taliban is an important 
component of the President's regional strategy. Defeating the Pakistan 
Taliban will prevent al Qaeda from collaborating with other extremist 
allies in the region and is necessary to ensure a stable, democratic 
Government of Pakistan (GoP). Defeating the Pakistan Taliban is a 
responsibility of the GoP, which faces serious threats from insurgent 
activities. Our role in defeating the Pakistan Taliban includes 
supporting the GoP through diplomatic and military means.
    Question. In your view, what are the greatest challenges in 
implementing the administration's strategy for Afghanistan and 
Pakistan?
    Answer. The most significant challenges we face in implementing the 
administration's strategy arise from our requirement to bridge the 
common ground between our national interests and those of the 
Governments of Pakistan and Afghanistan. Both sovereign nations face 
threats from entrenched insurgencies as well as significant domestic 
challenges. As a responsible partner and ally, we need to work 
carefully to support the two governments in maintaining the stability 
of their governments, defeating extremists, and supporting the needs of 
their populations. By supporting the two nations with all elements of 
our national power, we can enable them as they seek to prevent 
extremists from threatening regional stability.
                              afghanistan
    Question. Secretary Gates has said that in the long run the 
conflict in Afghanistan has to be ``Afghanistan's war for its own 
people.''
    Do you agree with that assessment?
    Answer. Yes. Unlike conventional battles for dominance of air, sea, 
land, or space, counterinsurgency is, at its core, a battle for the 
people. In Afghanistan, the Taliban is attempting to undermine, and in 
some cases replace, the Government and its services. International 
Security Assistance Force (ISAF) efforts in the near, mid and long term 
must focus on creating capability and capacity within Afghan structures 
in order to re-gain the confidence of the Afghan people. As Afghan 
institutions do so, they will win the confidence of the people, the 
Taliban will fall out of favor, and the Afghan Government will grow to 
provide the necessary services expected of a democratically elected 
national government. The Taliban offer no popular governance agenda, 
and are feared and mistrusted by more than 80 percent of Afghans. Thus, 
an empowered Afghan Government is essential to undercut the fundamental 
approach of the Afghan Taliban
    Question. Do you believe that our long-term strategy is properly 
oriented toward enabling the Afghan people to assume responsibility for 
their own security?
    Answer. The orientation of our strategy is sound; however, the 
execution of the strategy is under review. The ISAF Commander, General 
McChrystal, has just completed his initial assessment of the situation 
in Afghanistan. I and other senior leaders are taking a hard look at 
his assessment to define the way ahead to better focus our efforts and 
improve our effectiveness in enabling the Afghan people to assume 
greater responsibility for their own security.
    Question. From your perspective, what are the key lessons learned 
from our experience in Iraq that should be applied in Afghanistan?
    Answer. Every conflict is different. In Afghanistan, General 
McChrystal is implementing a strategy that reflects the reality of the 
current fight as it relates to the actual situation on the ground and 
the goals of the President's strategy. I believe one of the greatest 
lessons learned from Iraq that are applicable to all conflicts is the 
multi-faceted approach to problem solving and issue-resolution. 
Bringing together our very best talent from across the military, other 
U.S. Government Agencies and Departments as well as the leaders of 
industry provides for a whole-of-government approach applicable to the 
unique circumstances of the conflict.
    Question. You have expressed a sense of urgency about conditions in 
Afghanistan, saying that ``we have to start to turn this thing around 
within the next 12 to 18 months.''
    In your view, what goals and objectives must U.S. forces in 
Afghanistan achieve within the next 12 to 28 months?
    Answer. If we fail to gain the initiative and reverse the 
insurgent's momentum, we will face an emboldened enemy and worsening 
security situation. Gains in this must be our focus over the coming 12-
18 months. But, we must also account for the importance of longer-term 
activities that will provide the path to success.
    We must grow and improve the effectiveness of the ANSFs. We must 
leverage a whole-of-government approach, assisting in the development 
of effectiveness governance in Afghanistan. We must also secure the 
population and separate them from the insurgents to allow for social 
development and reconstruction.
    Question. You have also been quoted as saying the situation in 
Afghanistan is ``serious and deteriorating'' and expressing concern 
over recent opinion polls indicating that for the first time a majority 
of Americans do not think the war in Afghanistan is worth fighting.
    What has caused you to describe conditions in Afghanistan as 
``serious and deteriorating''?
    Answer. We have been fighting this war for 8 years, and although 
considerable effort and sacrifice has resulted in some progress, many 
tangible indicators and perceptions here at home, within the 
International community, and among the Afghan people have resulted in 
less confidence in our ability to accomplish the mission. The 
perception that our resolve is uncertain creates reluctance amongst the 
Afghans to align against the insurgency. The security situation has 
worsened, which makes the Afghan people feel less safe and have less 
confidence in coalition forces. The insurgency itself is more 
sophisticated and more resilient than at any time since 2001.
    Question. What would you say to those who question whether the war 
in Afghanistan is worth fighting?
    Answer. The U.S. military conducts the missions it is given. The 
question of ``worth'' is one for the American people to answer through 
debate, and ultimately by their elected representatives in Congress and 
by the President.
    Personally, however, I believe that allowing Afghanistan to again 
be used as a safe haven for those who seek to do the United States harm 
would not serve the national interest.
    Question. General Stanley McChrystal, Commander, ISAF/Commander, 
U.S. Forces Afghanistan, is in the process of conducting an assessment 
of the campaign plan in Afghanistan, including a review of United 
States and Afghan troop levels.
    Do you believe that the current end strength targets of 134,000 for 
the Afghan National Army (ANA) and 96,800 for the Afghan National 
Police (ANP) are sufficient, or should those end strength targets be 
increased?
    Answer. I do not believe the current authorized ANSF force levels 
(134,000 ANA and 96,800 ANP) are sufficient to provide security for the 
Afghan population. One of the stated goals of the President's strategy 
on Afghanistan and Pakistan is to develop an increasingly self-reliant 
ANSF that can take the lead role in the counterterrorism and 
counterinsurgency fight with reduced U.S. assistance. Current ANSF 
force levels are not sufficient to accomplish this goal.
    The Secretary of Defense has directed a detailed analysis, led by 
CENTCOM and the Joint Staff, be conducted to inform recommendations on 
options for future end-strength and capabilities for both the ANA and 
the ANP. If confirmed, I will use this analysis as well as inputs from 
the Service Chiefs, our Allies and partners to make recommendations on 
the future size and required capabilities of the ANSF.
    Question. What in your view are the factors that should be 
considered in evaluating any request for additional U.S. forces for 
Afghanistan?
    Answer. A proper analysis of General McChrystal's initial 
assessment will be critical to evaluating U.S. force levels in 
Afghanistan. Understanding the effective application of current 
resources in Afghanistan is a key factor. Any request for additional 
resources must focus on what is required to accomplish the mission in 
Afghanistan, where there are shortfalls, and then the specific requests 
to meet the requirement. We must understand how the additional forces 
fit into the overall strategy. Finally, careful consideration and 
assessments must made about available force levels and the impact 
additional forces will have on the health of the force.
    Question. What in your view are the major challenges for 
accelerating the growth of the Afghanistan National Security Forces, 
and how would you recommend addressing these challenges, if confirmed?
    Answer. The greatest international community challenge to 
accelerating the growth of the ANSF is the requirement for mentors for 
these forces. The greatest Afghan challenge is the development of 
leadership for the expanded force.
    The President's decision in March to deploy the 4/82 Brigade Combat 
Team (BCT) to provide additional mentors for the ANSFs will allow the 
United States to meet our ANA embedded training team requirements for 
the 134K Army and will significantly increase the number of ANP police 
mentor teams. U.S. Counterinsurgency BCTs are also assuming 
responsibility for police mentors in districts within their 
battlespace. We must continue to encourage our North Atlantic Treaty 
Organization (NATO) partners to provide these district mentors in order 
to build synergy for security within the battlespace and increase the 
number of districts with police mentor coverage. I also recommend 
encouraging NATO to use the NATO Training Mission-Afghanistan (NTM-A), 
which just recently stood up on 10 September 2009, as an opportunity to 
enhance training and mentoring of the ANP.
    Expanding the leadership capacity of the ANSF requires training and 
experience and both the ANA and ANP have leadership development 
programs in place. However, we must also recognize that leader 
development requires time and we must balance the pressing need for 
additional growth and progress in leadership with this reality in order 
to build forces that are self-sustaining over the long-term.
    Question. As the size of the Afghan National Army increases, should 
more of these forces be deployed to the border region to prevent cross-
border attacks by extremist militants from Pakistan into Afghanistan?
    Answer. I will defer comments on the placement of additional Afghan 
National Army forces to the senior commanders in theater as well as the 
leadership within the Afghan Ministry of Defense. However, the Afghan 
Border Police (ABP) have primary responsibility for border security. 
The Afghan National Army provides direct support and support in depth 
to the ABP. Operational Coordination Centers are currently being 
established at the Regional and Provincial levels to improve 
information sharing and synchronization of efforts.
    Preventing all incursions is difficult due to the length and porous 
nature of the border. However, practical cooperation between Afghan, 
Pakistani, and international forces improves border security. Effective 
military operations along the Afghanistan-Pakistan border areas are key 
to disrupt and eventually deny safe havens to al Qaeda and the Taliban 
from which to launch these incursions.
    ISAF and USFOR-A must continue to enhance the practical cooperation 
between ANSF, Pakistani military and international forces and increase 
the effectiveness of our counterinsurgency operations. Border and Joint 
Coordination Centers, regular tripartite engagements at all levels, and 
counterinsurgency training of Afghan and Pakistani forces are key to 
these efforts.
    Question. NATO has agreed to the establishment of a three-star 
command within the ISAF command structure to oversee the day-to-day 
execution of the conflict.
    What further changes, if any, to the U.S. and ISAF command 
structures in Afghanistan do you support to achieve greater unity of 
command?
    Answer. Achieving unity of command is critical to the success of 
any strategy. The Intermediate Joint Headquarters is a critical step in 
aligning the many current operational activities under a single 
command. Ongoing reviews of the various training organizations, SOFs, 
and other units will further streamline our command structures, and 
assist the United States and its allies achieve unity of effort while 
supporting the Government of Afghanistan.
    We also need to review how we conduct and synchronize our efforts 
across Afghanistan. In the past, we have often operated as if there 
were five separate campaigns occurring in each of the Regional 
Commands. While conditions on the ground may vary widely across the 
country, we must insure that our counterinsurgency campaign is unified 
throughout Afghanistan. The new Counterinsurgency Advisory and 
Assistance Team (CAAT) initiative, currently under development in 
Afghanistan, will assist ISAF in achieving unity of effort across the 
Regional Commands. CAATs will be employed in all five Regional 
Commands, and will assist commanders at all levels in achieving ISAF 
campaign objectives. They will also assist in rapidly disseminating 
counterinsurgency best practices across the theater. I expect the CAATs 
will be tremendous assets as we move to unify our counterinsurgency 
efforts, and will enable commanders to apply a combined, multi-
disciplined approach to the problem sets they face.
    Question. What is your assessment of the contributions by our NATO 
allies to the mission in Afghanistan? What more should our NATO allies 
be doing to support that mission, particularly the training of the 
ANSFs?
    Answer. Both our NATO and non-NATO partners have served valiantly 
alongside our forces, and more importantly, the growing Afghanistan 
national Security Forces. The fruits of their collective labors bore 
out during last months national and provincial elections, as Afghan 
National Army and National Police, having been trained and mentored by 
international ISAF forces, secured their country's first-ever self-run 
democratic election.
    As we adjust our strategy, we continue to seek our allies' 
perspectives and incorporate them into our approach going forward. Some 
allies have restrictive caveats that make our operations on the ground 
and in the air challenging and impact ISAF's unity of effort. The new 
intermediate joint command headquarters will go a long way in improving 
unity of effort, but there is still work required to encourage our 
partners to remove or reduce their caveats.
    Additionally, we would encourage our allies and coalition partners 
to contribute in ways consistent with their traditional strengths, 
including trainers for Afghan National Army and Police units. The new 
NATO Training Mission-Afghanistan command will leverage our allies' 
strengths in these areas. Certainly, we would welcome both equipment 
and financial donations from our partners who are unable to provide 
troops. As we collectively focus on building Afghan governance, all 
contributions will be welcome and put to good use.
    Question. Fielding the right kind of intelligence, surveillance, 
and reconnaissance (ISR) assets in Afghanistan is more challenging than 
in Iraq, due in large part to the very different geography of the 
country.
    In your view are there adequate ISR assets available to support 
requirements in Afghanistan? Is there a need for more?
    Answer. With the help of Congress, we have made progress ensuring 
our troops in Afghanistan have every advantage possible through 
significant investments in ISR. Since the Secretary of Defense stood up 
the ISR Task Force in 2008, we have resourced initiatives that 
collectively increase full motion video capabilities by more than 200 
percent and signals intelligence capabilities by approximately 300 
percent. As we shift our focus from Iraq to Afghanistan, we will work 
closely with General McChrystal and his staff to ensure our ISR 
capabilities adequately respond to the unique challenges associated 
with terrain, distance, and the relative lack of communications 
infrastructure. While increased ISR collection and sensors remain 
important, we must also ensure that the necessary processing, 
exploitation, and dissemination capabilities are in place to move 
information rapidly to tactical users.
    Question. What in your view are the best performing ISR assets?
    Answer. We have learned through experience in Iraq and Afghanistan 
that in addition to ISR assets, cross-cueing, and fusion of information 
from a variety of sensors is also critical to success. One example of 
this has been the use of signals intelligence as a means to employ more 
effectively full motion video. Commanders on the ground ask for 
additional full motion video more than any other ISR asset.
    Question. Recent press articles have raised concerns about the 
ability to provide assured beyond line of site and satellite 
communications as needed to troops deployed in Afghanistan outside of 
the large main bases.
    In your view, is there a problem with sustainable communications 
and if so, what options do you see as available to address the 
situation?
    Answer. Yes. It is clearly a challenge to provide robust and 
sustainable communications in Afghanistan due to the rugged terrain, 
varied missions our troops must execute, and lack of existing 
infrastructure within the country. We are increasing our overall 
satellite capacity in the theater by taking advantage of a variety of 
assets (for example, the recent launch of the Wideband Global 
Communications-2 (WGS-2) capability. We are also working to improve our 
troops' communication capabilities and equipment at the small-unit 
level to support such critical functions as Command and Control (C2), 
MEDEVAC requests, and ``call for fire'' support. Where it makes sense, 
we are leveraging emerging commercial capabilities in country, such as 
cellular telephone networks. Communications is a critical enabler for 
our forces, and we are making a concerted effort to ensure delivery of 
the very best capabilities we can wherever needed.
    Question. News reports indicate that Afghan resentment over 
civilian deaths resulting from U.S. counterterrorism operations and 
U.S. or NATO airstrikes continues to grow. In July, General McChrystal 
issued a new directive limiting the use of airstrikes and assaults 
against homes in order to reduce the incidents of civilian casualties. 
General McChrystal called for avoiding ``the trap of winning tactical 
victories--but suffering strategic defeats--by causing civilian 
casualties or excessive damage and thus alienating the people.''
    Do you support restraints on the use of airpower and home entries 
to reduce civilian casualties even if this increases the risks to U.S. 
forces?
    Answer. Any time an innocent person is killed our mission becomes 
more difficult and our men and women in Afghanistan understand this. In 
addition to the tragic loss of life, all of the leadership is aware of 
the negative repercussions that result from civilian casualties. As 
such, General McChrystal has published a new tactical directive that 
provides guidance to subordinate commanders, and the force, on 
controlled use of munitions and tactical techniques to better safeguard 
the population and reduce civilian casualties. I recognize, as does 
General McChrystal, that the carefully controlled and disciplined 
employment of force entails some risks to our troops--we must work to 
mitigate that risk wherever possible, but excessive use of force 
resulting in an alienated populace will produce far greater risk to the 
accomplishment of our mission. I have every confidence in the ability 
of our forces to operate effectively and to succeed in this challenging 
environment under the current guidelines.
                                pakistan
    Question. Administration officials have said that ``no 
improvement'' is possible in Afghanistan without progress in Pakistan 
or, similarly, that you can't succeed in Afghanistan without 
``solving'' Pakistan.
    Do you agree that no improvement is possible in Afghanistan without 
solving Pakistan's control of its border region?
    Answer. The Government of Pakistan (GoP) has been conducting 
continuous operations within the border regions of the Northwest 
Frontier Province and the Federally Administered Tribal Areas since 
August 2008. Pakistan's ability to conduct sustained operations against 
terrorists and other extremist groups who seek safe haven along the 
Afghanistan-Pakistan border is vitally important to our regional 
strategy. The GoP's long-term commitment to reconstruction, economic 
development, and building the capacity of their security forces 
contributes greatly to our efforts in concert with ISAF to stabilize 
Afghanistan.
    Question. How would you describe the linkage between progress in 
Afghanistan and developments in Pakistan?
    Answer. Afghanistan and Pakistan stability are inextricably linked 
as extremist threats transcend regional boundaries. The strategy we 
have for Afghanistan and Pakistan is regionally focused in recognition 
of the fact that what happens in one country affects the other. 
Clearly, addressing extremist safe havens and cross border activities 
is essential to success in Afghanistan. Our strategy develops 
Pakistan's counterinsurgency capabilities and simultaneously pursues 
long-term approaches to promote stable, democratic governance and sound 
economic policies to provide opportunity for the people of Pakistan.
    Question. What are the strategic risks in tying Afghanistan's 
future too closely to developments in Pakistan?
    Answer. The ability of extremists in Pakistan to undermine our 
efforts in Afghanistan is known, which is why our new approach to the 
strategy for Afghanistan and Pakistan is regionally focused. U.S. and 
international support to the Government of Pakistan in their efforts 
against extremism is an imperative. While we continue to enhance our 
bilateral relationship with each country based on its own merits, we 
cannot ignore the ties between the two countries by delinking 
Afghanistan's future from developments in Pakistan. Without effective 
action against these groups in Pakistan, Afghanistan will face an 
enduring threat to its long-term stability.
    Question. What is your assessment of how the Pakistan Army 
leadership perceives the threat to Pakistan from militant extremists 
located along the Afghanistan-Pakistan border?
    Answer. Pakistan's leaders recognize that extremist groups pose a 
growing threat to Pakistan's national security and long-term stability. 
Pakistan's civilian and military leaders have publicly expressed their 
commitment to countering this threat. They understand that insurgencies 
cannot be defeated in months but rather in decades. Pakistan's military 
must sustain its action against extremist groups within its borders and 
provide humanitarian assistance to mitigate the threat. Ongoing 
operations in the North West Frontier Province and the Federally 
Administered Tribal Areas are a promising start. U.S. leaders engage 
regularly with the Government of Pakistan to convey both our concern 
about these threats and our political support and we are augmenting 
their efforts through military and economic assistance and cooperation.
    Question. Through the Pakistan Counterinsurgency Fund, the United 
States is providing significant assistance to train and equip the 
Pakistan Frontier Corps and build the capacity of the Pakistan Army to 
conduct counterinsurgency operations.
    Would you agree that in order for U.S. military assistance to 
Pakistan to be effective, Pakistan's leadership must make it clear to 
the Pakistani people that confronting the threat posed by al Qaeda, the 
Taliban and other militant extremists is essential for the sake of 
Pakistan's own security interests?
    Answer. Indications from Pakistan senior leadership and outside 
observers are that Pakistan's military operations along the border 
currently have the support of the Pakistani population as the Pakistani 
people are becoming increasingly aware of the threat posed by extremist 
organizations. It is important for the Government of Pakistan and the 
Pakistan military to have the support of the population for these 
operations, without which we could not effectively provide U.S. 
military assistance. We also understand that the population needs a 
whole-of-government approach to the problems Pakistan faces or support 
for the government and military operations could erode. Our broad 
assistance efforts support this approach by improving Pakistan's 
military/security capabilities and assisting the Government of Pakistan 
to make improvements in education, agriculture, job creation, long-term 
economic development, as well as governance in order to improve the 
lives of the Pakistani people.
    Question. What steps would you recommend taking to ensure that U.S. 
military assistance provided to Pakistan is used to enhance Pakistan's 
efforts to confront the threat posed by militant extremists on its 
territory and deny safe haven to groups conducting cross-border 
incursions into Afghanistan?
    Answer. We have two primary funding authorities for providing 
assistance to Pakistan that support the Pakistan security forces 
efforts against extremist groups along the Afghan-Pakistan border. 
These are the Pakistan Counterinsurgency Fund (PCF)/Pakistan 
Counterinsurgency Capability Fund (PCCF) and Foreign Military Finance 
(FMF). PCF/PCCF provides the combatant commander a flexible, responsive 
funding source to meet near-term counterinsurgency requirements of 
Pakistan security forces along the border. FMF supports aspects of our 
Af-Pak strategy and counterinsurgency requirements and helps build the 
capabilities of Pakistan's conventional forces in order to provide key 
enablers and supporting activities for the fight. FMF also reinforces 
the longer-term U.S.-Pakistan military-to-military relationship and the 
broader goal of building a long-term effective partnership with 
Pakistan. I believe we have the mechanisms and authorities in place to 
help fund the equipment/assistance the Pakistanis need to ensure we are 
meeting the goals for which these funding mechanisms were intended.
    Question. What additional steps, if any, would you recommend to 
ensure transparency and accountability for reimbursements paid to 
Pakistan from Coalition Support Funds for support provided to the 
United States relating to OEF?
    Answer. Coalition Support Funds (CSF) provide reimbursement to 
Pakistan for expenses incurred while conducting operations in support 
of U.S. efforts against extremist/terrorist organizations and are a key 
element toward meeting our objectives in the Afghan-Pakistan strategy. 
We continue to work with the Pakistan military to improve CSF 
processes, and ensure appropriate accountability and transparency for 
CSF. We recently sent a team to Pakistan to review, with the Pakistan 
military, the CSF documentation and other requirements in order to 
improve accountability and timeliness of payments.
    Question. In your view, what should be done to press the Pakistan 
Government to confront the Afghan Taliban shura operating out of the 
city of Quetta in Baluchistan?
    Answer. The United States should continue to support the Government 
of Pakistan to expand their capabilities and help them confront and 
defeat militant extremism wherever it may be in Pakistan. The Quetta 
Shura bears the ideological standard for the Taliban--we must continue 
to work with Pakistan to approach the Taliban as a regional threat to 
both Afghanistan and Pakistan. Taliban groups throughout the region 
derive their operational guidance from commanders at the local and 
tribal level. Ongoing operations in the North West Frontier Province 
and the Federally Administered Tribal Areas target the threat's current 
center of gravity at the local commander and tribal level They are a 
promising start, and strengthen the GoP's legitimately in the eyes of 
the Pakistani people. U.S. leaders must continue to engage Pakistan and 
encourage the government to continue to take sustained action against 
militant extremists throughout Pakistan.
    Question. What is your assessment of the current level of 
cooperation between Afghanistan and Pakistan in confronting the threat 
of militant extremists in the border region?
    Answer. The relationship between Afghanistan and Pakistan continues 
to improve from just a few years ago and the leadership of both 
countries continues to engage in discussion with a goal of enhancing 
the relationship including greater cooperation. Pakistan's leaders are 
increasingly convinced of the demonstrated benefits of cross-border 
cooperation. This cooperation also occurs at the lower levels through 
border coordination and other activities in order to meet the challenge 
of dealing with extremist threats in the border region. There is more 
that can be done and the United States continually works to facilitate 
and improve the cooperation between these two countries and with 
coalition forces on the Afghanistan side of the border.
    Question. To what extent can actions by India, particularly with 
respect to troop levels along the India-Pakistan border, help or hinder 
U.S. efforts in Pakistan and Afghanistan?
    Answer. India and Pakistan share a common regional threat of 
violent extremism. Our strategy is regionally focused and acknowledges 
that what happens in one country affects the other. Al Qaeda and 
associated extremist organizations are targeting India, as well as 
Pakistan, Afghanistan, our allies in the Middle East, Europe, 
Australia, and the U.S. Homeland. We continue to encourage increased 
contact across the Line of Control, senior-level bilateral engagement 
and trade. Our strategy seeks opportunities to build India-Pakistan 
confidence. While there are no immediate options or quick-fixes, 
continued demonstration of U.S. long-term commitment to regional 
security will reduce tensions between Pakistan and India and enhance 
the will and capacity of Pakistanis to move decisively against 
extremists.
         joint improvised explosive device defeat organization
    Question. DOD has taken inconsistent positions on the disposition 
of ad hoc, but critical, entities created to respond to the urgent 
needs of combat forces in Iraq and Afghanistan. The Secretary of 
Defense has recently stated in testimony before the Senate 
Appropriations Committee, Subcommittee on Defense, that the ISR task 
force should be phased out, while at the same time, the Department has 
decided to institutionalize Joint Improvised Explosive Device Defeat 
Organization (JIEDDO). Some have expressed concern about the possible 
hasty demise of the ISR task force, while others have expressed concern 
about the premature decision to make JIEDDO permanent. While JIEDDO 
reports to the Deputy Secretary of Defense, the Office of the JCS plays 
an active role in reviewing and validating urgent operational needs 
emerging from Iraq and Afghanistan.
    What are your views of JIEDDO and its role within the Department 
and within the Department's process for responding to urgent 
operational needs?
    Answer. The Joint IED Defeat Organization is effective in its 
mission to lead, advocate, and coordinate the Department's C-IED 
efforts in support of combatant commanders. They are a highly valued 
capability that continues to demonstrate the agility to respond quickly 
to urgent operational needs by providing essential material and 
nonmaterial solutions to counter known, newly deployed and emerging IED 
threats.
    Question. What are your views of the criteria the Department is 
using to determine which institutions should become permanent and which 
should not, and to demonstrate how these criteria are being 
consistently applied across organizations?
    Answer. Organizations are often created in response to shortfalls 
identified by combatant commanders. There are several venues, including 
Senior Warfighter Forums (SWarFs) and Deputies Advisory Working Groups 
(DAWGs), to review and make recommendations to the Department 
leadership as to whether an organization should become permanent. In 
the case of JIEDDO, the C-IED SWarF and the DAWG concluded that the 
nature of the IED threat and continued combatant commanders' need for 
rapid solutions necessitated an enduring organization with the agility 
to rapidly respond to changing urgent operational needs. In addition to 
its rapid acquisition capability, JIEDDO's operations and information 
fusion support, and their ability to support time-sensitive joint C-IED 
training requirements, are well suited to meet these urgent operational 
needs.
                            counternarcotics
    Question. Recently, senior U.S. Government officials have indicated 
that the United States will begin to increase alternative crop 
development, public information, and interdiction programs, rather than 
continuing or expanding ongoing eradication efforts. This has been 
viewed as a u-turn of the U.S. counternarcotics strategy in Afghanistan 
and has been greeted with skepticism from some senior Afghan officials.
    What is your view of this ongoing change in strategy?
    Answer. I understand the interagency's intent to rebalance its 
counternarcotics strategy and focus resources on those programs that 
will contribute directly to breaking the narcotics-insurgency-
corruption nexus and help connect the people of Afghanistan to their 
government. I believe we need a multi-pronged approach that targets 
laboratories, traffickers, and movement of drugs, and facilitators at 
the same time we work to provide alternative income opportunities for 
farmers.
    Question. What is your assessment of the eradication policy the 
United States has pursued in recent years?
    Answer. The efforts of the U.S. Government to support and fund the 
Afghan Government's eradication efforts have shown little success. The 
funding and energy for eradication programs should be redistributed to 
other counternarcotics activities that have proven far more successful 
such as interdiction, public information, and alternative development.
    Question. Do you believe that this shift in policy is adequately 
resourced?
    Answer. If the resources dedicated to the eradication programs of 
the U.S. counternarcotics strategy were redistributed to interdiction, 
rule of law, public information, and alternative development, this 
would be a step in the right direction. However, General McChrystal has 
just completed an initial assessment for the Secretary of Defense, and 
we need to review the assessment to determine if the shift in counter-
narcotics policy is adequately resourced. Additionally, SRAP, NSC, and 
the interagency are in the process of reviewing our CN Strategy for 
Afghanistan.
    Question. What role do you believe DOD will play in each component 
of the new strategy?
    Answer. DOD's counter-narcotics mission is to support the combatant 
commander and law enforcement, through information sharing, training 
and equipping, infrastructure, and emergency assistance. DOD's main 
focus is on interdiction efforts to decrease narcotics trafficking and 
processing in Afghanistan while building Afghan capacity to disrupt and 
dismantle significant drug trafficking organizations. A nexus exists 
between narcotics and the insurgency as well as corruption and 
criminality. Recent decisions by the NATO Defense Ministers and the 
Secretary of Defense, at the request of the Afghan Government, provided 
the guidance and authorities for both ISAF forces and the U.S. military 
to target the trafficking and production of narcotics where the nexus 
exists. Additionally, the recent change to DOD's international 
counternarcotics policy enabled more robust support and integration of 
capabilities with civilian law enforcement agencies operating in 
Afghanistan.
                         counterdrug operations
    Question. DOD expends more than $1 billion per year in the fight 
against illegal narcotics trafficking. For much of the last two 
decades, the fight against illegal narcotics has taken place within the 
Western Hemisphere, but in recent years, counternarcotics operations 
have expanded to Afghanistan, West Africa, and Asia. U.S. commanders in 
Afghanistan have identified success against narcotics traffickers as 
fundamental to the success of their mission to root out the Taliban and 
al Qaeda. Despite this expanding focus to other parts of the globe and 
the focus of U.S. commanders in Afghanistan, the Department often views 
counternarcotics operations as the job of Federal law enforcement 
agencies.
    Please discuss your views of the DOD's counternarcotics mission and 
the apparent tension that exists within the Department about the proper 
role of the military.
    Answer. Illegal narcotics and their proceeds fuel terrorism, 
regional instability, and organized crime. They are a serious, 
evolving, and global threat--which no country can defeat alone. All 
agencies with counternarcotics responsibilities must work together to 
ensure our collective tactics, techniques, and procedures provide the 
agility required to counter such an asymmetric, adaptable threat. 
Although Federal law enforcement agencies are responsible for the 
majority of counternarcotics missions, DOD is a critical supporting 
member of the team. Combating drug trafficking and related threats 
requires a whole of U.S. Government approach along the continuum of 
drug production, interdiction, investigations, intelligence and 
information sharing, eradication, capability and capacity building, 
demand reduction, and alternative livelihood development and 
partnerships. These are important counternarcotics elements whether 
combating drugs in the United States, the Western Hemisphere, or the 
poppy fields of Afghanistan.
    Within the United States, DOD is the lead Federal agency for the 
detection and monitoring of aerial and maritime transit of illegal 
drugs into the United States (10 U.S.C. 124). We carry out this mission 
in support of the counterdrug activities of Federal, State, local, and 
international partner law enforcement agencies through our Geographic 
Combatant Commands (GCCs), their subordinate commands and task forces, 
and as a full partner in interagency counterdrug intelligence and 
operations coordination and ``fusion'' centers located throughout the 
country. These include the El Paso Intelligence Center, the U.S. 
Customs and Border Protection Air and Marine Operations Center in 
Riverside, CA, and Office of National Drug Control Strategy's High 
Intensity Drug Trafficking Areas. In addition, DOD supports 54 State 
and territorial counterdrug task forces through the National Guard 
Counterdrug Governors' State Plans (32 U.S.C. 112). These 2,600 
National Guard soldiers and airmen leverage DOD resources and unique 
capabilities to act as catalysts to better coordinate State and local 
law enforcement efforts with those of the Federal Government in 
attacking both the supply and demand for illicit drugs in our Homeland.
    Lastly, within the Department there is a healthy, constructive, and 
continuous dialogue about the proper role of the military in 
counternarcotics activities. As you well know with two major combat 
operations on going and a steady state requirement for the defense of 
the homeland, resources are always a limiting factor. It is this 
competition of resources that forces all of the United States to 
scrutinize each mission to ensure our military members support 
interagency activities that not only add measurable value to our whole-
of-government counterdrug efforts, but enhance, rather than detract 
from the readiness of our military and civilian members.
                        strategic communications
    Question. Over the past few years, DOD has funded a growing number 
of counterterrorism and counterradicalization strategic communications 
programs. While the Department does not have a separate budget 
outlining its strategic communication activities, the Government 
Accountability Office reports that DOD ``spent hundreds of millions of 
dollars each year'' to support its information operations outreach 
activities, including recent initiatives funded by the JIEDDO and GCCs. 
Many of these ongoing programs are in support of operations in Iraq and 
Afghanistan, but Military Information Support Teams from United States 
SOCOM are also deploying to U.S. embassies in countries of particular 
interest around the globe to bolster the efforts of the Department of 
State and the U.S. Agency for International Development (USAID).
    What are your views on DOD's strategic communications role and its 
integration into overall U.S. foreign policy objectives?
    Answer. Quite honestly, I am not a fan of the term strategic 
communications. I believe that we are best served by a communications 
policy that aligns deeds and words, and that builds on America's 
historic reputation for being credible and reliable--saying what we 
mean and doing what we say. The Department of State is the designated 
lead for U.S. Government communication efforts at the national level, 
developing and coordinating ``whole-of-government'' foreign policy 
objectives and supporting programs for the communications efforts 
through the NSC. Our military activities are integrated with and 
support these objectives and programs. All of our servicemembers have 
an important role to play--aligning our actions and communications 
activities at the tactical, operational and strategic levels in a 
manner that minimizes ``say-do'' gaps, and represents our national 
interests and values in a culturally appropriate manner.
    Question. What is your view of the apparently expanded role of the 
U.S. military in supporting U.S. strategic communications programs led 
by the State Department and the USAID in countries other than Iraq and 
Afghanistan?
    Answer. As noted above, I believe that the military performs a 
vital role in national communication programs, and one that remains 
consistent with our authorities and responsibilities. We provide 
worldwide forward-deployed military communications resources and unique 
capabilities in support to State and USAID efforts. Over the past 
decade, military activities supporting these ``whole-of-government'' 
programs have expanded in concert with growing regional challenges and 
our global engagement posture. However, they are but one component of 
extensive collaboration with our interagency partners to promote 
national policy objectives. We often find that DOD has capability and 
capacity that, when coupled with State and AID programs, provides a 
powerful lever to advance U.S. Government interests and objectives. I 
appreciate Congress's continuing support for further development of 
these important capabilities.
                                  iran
    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the Middle East region?
    Answer. Iran continues to be one of the most destabilizing regional 
actors with regard to Iraq, Afghanistan, and the broader Middle East 
region, and therefore must be taken into account as we execute and 
develop future policy. Our policy and strategy regarding Iran requires 
close coordination of all elements of national and international power. 
The President has articulated an initial policy of reaching out to 
Iran, which I fully support. I also support current diplomatic and 
economic initiatives with regard to Iran, to include U.N. actions (both 
sanctions and financial measures), regional initiatives, and 
international pressure. I fully support the Department of State's Gulf 
Security Dialogue initiative to strengthen and reassure our regional 
partners. This includes military aspects such as capacity building, 
border security, missile defense, and proliferation security 
initiatives.
    Question. In your view, does Iran pose a near-term threat to the 
United States by way of either its missile program or its nuclear 
program?
    Answer. While these programs will not threaten the U.S. Homeland in 
the near term, Iran's posturing can threaten U.S. interests in the 
region. These include Iranian use of proxies in Iraq, Afghanistan, 
Lebanon, the Palestinian territories, on the African continent, and 
even in the tri-border region of South America.
    Question. If you believe either of these programs pose a near-term 
threat, what in your view are the best ways to address such a threat?
    Answer. I will continue to support current initiatives with regard 
to Iran, to include engagement, U.N. actions, regional initiatives (to 
include reassuring our regional partners), financial measures, and 
international pressure. We encourage Iran to fulfill its responsibility 
with regard to international agreements to the Non-proliferation 
Treaty, of which Iran is a signatory, and the additional protocol.
    Question. Other than nuclear or missile programs, what are your 
concerns, if any, about Iran?
    Answer. A primary concern is Iranian malicious activity throughout 
the region through the use of proxies in an effort to extend Iranian 
influence into sovereign nations by providing weapons, technology, 
training, and finance. This can be seen through Iranian support to 
HAMAS and Hizballah, as well as interference within Afghanistan and 
Iraq. I am concerned Iran's continued malign activities will impact 
stability and potentially the regional economy. It is important to 
maintain and strengthen our relationships with our regional partners 
and allies, by continuing to build partner capacity, as well as land 
and maritime security to counter Iranian malign influence in the 
region. I will continue to work in close coordination with all 
applicable U.S. Government departments to ensure our policies toward 
Iran take a regional approach.
    Question. What concerns, if any, does the election related unrest 
in Iran raise from a military perspective?
    Answer. I am concerned that the growing influence of Iran's Islamic 
Revolutionary Guard Corps over Iranian politics will result in the 
militarization of Iranian foreign policy. Nonetheless, at the moment I 
do not project any significant changes to Iran's overall foreign policy 
objectives. I have observed no positive effects on the Iranian military 
as a result of recent election unrest.
                                 china
    Question. China has an increasingly significant role in the 
security and stability of the Asia-Pacific region and the United States 
must determine how best to respond to China's emergence as a major 
regional and global economic and military power.
    What is your assessment of the current state of U.S.-China military 
relations?
    Answer. Relations between the U.S. and Chinese militaries are 
consistent with years past. The moratorium in exchanges unilaterally 
imposed by the People's Republic of China last year has been lifted, 
permitting the continuation of military-to-military exchanges. The 
increasing number of exchanges notwithstanding, I am concerned about 
China's continued lack of transparency with regard to People's 
Liberation Army modernization, capability, and strategic intent. I am 
hopeful that we can keep the substance and the tone of our military 
relationship with China on a positive trajectory.
    Question. How would you characterize the quality of U.S.-China 
military-to-military engagements to date and what should be the U.S. 
goal for such engagements in the future?
    Answer. U.S.-China military-to-military relations, as constituted, 
provide opportunities for exchange and dialogue on a representational 
level, but are not yet sufficient to provide enhanced understanding of 
China's intentions or capabilities. Moreover, the relationship is 
fragile, and vulnerable to perceived slights. Our goal is to establish 
continuous communication channels that are open not only when relations 
are good, but in periods of turbulence as well. We have recently had 
several engagements including Defense Consultative Talks, the Chief of 
Staff of the Army's visit, and Special Military Maritime Consultative 
Agreement dialogues. These indicate a gradual willingness on the part 
of China to engage in a more substantial relationship, and I welcome 
this.
                       u.s. relations with russia
    Question. U.S. relations with Russia, although strained over a 
variety of issues, have improved recently in some areas. At the Moscow 
Summit in July, you signed a new strategic framework for U.S.-Russian 
military-to-military engagement with your Russian counterpart.
    What do you believe are the potential benefits and opportunities to 
improve U.S.-Russian relations either through military-to-military 
programs or other cooperative actions that you would recommend?
    Answer. We have witnessed positive developments in our interaction 
with Russia since the Presidents agreed at the Moscow Summit to pursue 
a more constructive relationship based on mutual security interests. 
While we will undoubtedly continue to experience challenges in our 
bilateral relationship, we are committed to a course change with 
Russia, which will require strategic focus, effort, and discipline. The 
Strategic Framework General Makharov and I signed at the Summit puts 
our Nations' militaries on a more pragmatic and reciprocal path to 
cooperation in areas where we share common interest, such as 
counterterrorism, counterproliferation, crisis response, peacekeeping 
and anti-piracy. In those areas, I believe we can make the most 
progress towards achieving operational capability for combined missions 
and in formulating common strategic approaches to the challenges that 
face both nations. Additionally, militaries of the size and 
capabilities possessed by our Nations should remain engaged in 
constructive communications and dialogue, not only to foster 
understanding and address unforeseen consequences, but also to promote 
positive cooperation and enhance regional and global peace and 
stability. Enhanced communications will aid in mitigating our strategic 
differences and will serve to cultivate a positive change in Russia's 
policy approach
                missile defense cooperation with russia
    Question. In an interview with a Russian newspaper before the July 
Moscow summit meeting, President Obama said the following: ``We have 
not yet decided how we will configure missile defense in Europe. But my 
sincere hope is that Russia will be a partner in that project. If we 
combine our assets on missile defense, the United States, Russia, and 
our allies will be much safer than if we go it alone. I see great 
potential here, and I hope to have a robust discussion with President 
Medvedev about these possibilities for cooperation on missile defense 
when I am in Moscow next week.''
    Do you agree with the President that missile defense cooperation 
with Russia would serve our mutual security interests and could enhance 
our security against potential missile threats from nations like Iran?
    Answer. Yes. We remain interested in exploring cooperative 
opportunities that would complement our missile defense architecture. 
As an example, we believe the Russian Garbarla Radar in Azerbaijan and 
the Armavir radar in southern Russia could be additive to our missile 
defense architecture and provide helpful information for early 
ballistic missile warning detection. It would go a long way towards 
reassuring the Russians that our missile defense efforts in Europe are 
not directed towards their nation. While we are realistic about Russian 
willingness to join the United States in this endeavor, cooperation 
could be an important element in a broader strategic partnership 
between the United States and Russia aimed at addressing the key 
security challenges facing both our Nations.
                       ballistic missile defense
    Question. With the fiscal year 2010 budget request, Secretary Gates 
has refocused the Department's missile defense program on effective 
theater missile defenses to protect our forward deployed forces, 
allies, and friends against existing short- and medium-range missile 
threats from nations like North Korea and Iran. The budget request 
would provide $900 million in increased funding for more of the 
Terminal High Altitude Area Defense and Standard Missiles-3 
interceptors, and more Aegis Ballistic Missile Defense ships.
    Do you agree with Secretary Gates' decision to increase the focus 
on effective theater missile defenses to defend our forces against 
existing regional (short- and medium-range) missile threats from 
nations like North Korea and Iran?
    Answer. Yes. Our forces are increasingly threatened by shorter-
range ballistic missiles and the proliferation of dangerous 
technologies among rogue regimes and non-state actors. In addition, 
states like Iran and North Korea continue to develop longer-range 
ballistic missiles with which to threaten the United States and our 
allies and friends.
    Question. The administration is considering a number of options for 
possible missile defense in Europe against a potential future Iranian 
missile threat, including the previously proposed deployment of missile 
defense capabilities in Poland and the Czech Republic.
    From a technical standpoint, do you believe there are a number of 
possible options for a missile defense in Europe, and do you believe a 
land-based Standard Missile-3 (SM-3) interceptor could provide a useful 
capability against future Iranian missile threats, both to Europe and 
potentially to the United States?
    Answer. Yes. I believe there are a number of technical alternatives 
for missile defense architectures in Europe. Land- and sea-based SM-3 
interceptors, along with the necessary sensors and warning from both 
ground and space, could be key components of an alternative technical 
architecture.
    Question. The fiscal year 2010 budget request for the Missile 
Defense Agency includes an initiative to develop the capability to 
intercept ballistic missiles early in their flight, sometimes referred 
to as the ``ascent phase.'' This initiative would use the SM-3 
interceptor along with existing and near-term sensors. If this 
capability is developed successfully, it could permit the United States 
to intercept long-range missiles from nations like North Korea well 
before the Ground-base Midcourse Defense system would have to be used 
to defend the Nation.
    What is your view of the potential value of an early intercept or 
ascent-phase intercept capability?
    Answer. An early or ascent-phase intercept capability would improve 
defense of theater areas and the homeland, and we are considering 
options for that potential capability. This defense capability would 
allow more intercept opportunities and potentially conserve 
interceptors by allowing more shoot-look-shoot vice salvo engagements. 
As a hedge against evolving future threats, destroying a threat missile 
early in flight reduces the effectiveness of the missile's 
countermeasures.
                       security force assistance
    Question. Secretary Gates has repeatedly called for strengthening 
the civilian capacity and capabilities of the U.S. Government, and has 
also stressed the importance of fostering the capabilities of 
international allies and partners. What is less clear, however, is 
whether DOD's military and stability support capabilities, in terms of 
resources and requirements, ought to shrink, as the capabilities of 
U.S. Government civilian agencies and international partners grow.
    To what extent, if any, should assumptions about future growth in 
or availability of U.S. Government civilian capacity and capabilities 
shape calculations of Defense Department requirements, force structure, 
and investment decisions?
    Answer. I would suggest that this is about growing overall U.S. 
Government capacity rather than simply shifting existing capacity. DOD 
requires substantial and enduring capabilities to conduct stability 
operations to succeed in contingencies where a non-permissive 
environment either disallows or severely constrains the deployment of 
civilian professionals.
    That said, the U.S. Government also requires a robust civilian 
expeditionary capability for contingencies where the security 
environment is permissive--and not just for post-conflict 
stabilization, but also to conduct stability operations on a preventive 
basis--to help partners solve problems before they become crisis that 
may require military interventions.
    On several occasions, my predecessors and I--and the Secretary of 
Defense--have testified before Congress regarding the national 
strategic importance of this civilian expeditionary force. Moreover, 
the Joint Staff and OSD have been working in earnest with the State 
Department and Congress on development of this civilian expeditionary 
capability since 2004. Unfortunately, progress has been very slow. It 
took almost 5 years to get authorization to establish a Civilian 
Response Corps (CRC) under the aegis of the State Coordinator for 
Reconstruction and Stabilization. In fiscal year 2009, Congress 
appropriated $75 million for the CRC, which has since resulted in the 
recruiting of 67 of 250 CRC-Active component personnel (the full-time 
first responders) and 530 of 2000 CRC-Standby component personnel 
(those assigned other full-time duties but who train and volunteer to 
deploy when available). S/CRS hopes to have all 250 CRC-A and 1,000 
CRC-S in place by the end of fiscal year 2010. We are pleased with this 
recent progress, but frankly, the small size of the CRC suggests DOD 
must continue to prepare for situations where its capabilities may be 
overwhelmed or where the threat situation prohibits their deployment.
    Question. To what extent, if any, should assumptions about future 
growth in, or the availability of, the military capabilities of our 
international partners and allies shape calculations of Defense 
Department requirements, force structure, and investment decisions?
    Answer. We do account for allied and partner capabilities as we 
consider investment decisions, although we do so on the margins. 
However, we do not see any large increase in partner capacity 
forthcoming. There are exceptions; however. For example, as we consider 
worldwide distribution of missile defense assets, we continually assess 
(and encourage) the contributions of partner nations. OEF and OIF 
resulted in an intensive 8-year effort to build the capacity of our 
coalition partners to work with us. At the height of our efforts in 
Iraq, we had 34 countries and 25,000 coalition troops deployed. Right 
now in Afghanistan, we have 41 countries and 37,000 deployed troops 
fighting along side us. I consider this a substantial accomplishment. 
These coalition forces have reduced requirements for the deployment of 
U.S. forces and reduced the risk to U.S. forces that are deployed. 
However, there is much more we can do and we need your help in three 
areas.
    First, we need authorization to use Section 1206 Global Train and 
Equip authority to train and equip coalition partners. DOD appreciates 
the recent clarification provided by the Committees on Armed Services 
of the House and Senate (HASC and SASC), respectively in their reports 
on the National Defense Authorization Act (NDAA) for Fiscal Year 2010 
bills, which endorse the use of section 1206 to train and equip 
partners for participation in coalition operations in Afghanistan. We 
look forward to clarification being included in the NDAA for Fiscal 
Year 2010 bill that emerges from conference.
    We currently have an appropriation that allows the United States to 
loan equipment, called the Defense Coalition Readiness Program, but our 
partners cannot keep it. This greatly complicates the problem of 
fielding coalition partners who have no way to maintain their readiness 
once a deployment is complete. Foreign partners such as Georgia, 
Jordan, Columbia, and many others are willing to conduct multiple 
deployments over a period of years, so it makes little sense to let 
their capabilities atrophy between each deployment and start over from 
scratch each time.
    Second, the ceiling of $350 million on section 1206 authority needs 
to increase. Every geographic commander has cited section 1206 as the 
most important program they have to address rapidly threats and 
opportunities in their theater. Annual global demand is about $800 
million per year and, once proposals vetted, we have about $500 million 
in quality strategic programs operating under a $350 million cap. If we 
expand the use of section 1206 to train and equip coalition partners, 
the demand will only grow.
    Third, for 3 years now, we have requested that Congress grant U.S. 
authority to establish a standing inventory of equipment that we know 
almost every coalition partner will need to deploy to the warfight. 
This year, we requested an appropriation of $22 million in addition to 
the authority. The lack of this authority creates very long lead times 
in the provision of equipment to foreign partners because they are 
often standing in line behind our own force requirements. In some 
cases, the lack of this authority has delayed deployment of coalition 
partners by 8-10 months, which simply increases risks to U.S. forces.
    Question. A major operational effort in both Afghanistan and Iraq 
will be building their military and police forces' capability such that 
these forces can eventually take on the responsibility for securing 
their populations and fighting insurgents.
    What organizational and operational realignments in military 
structure and resources, if any, are necessary to create, train, equip, 
and deploy U.S. personnel or units to meet these increased requirements 
for security force assistance?
    Answer. SOCOM is currently designated as the proponent for Security 
Forces Assistance (SFA) within DOD. In this role, they lead development 
of joint SFA doctrine; lead the development of joint SFA training and 
education for individuals and units; lead the identification of 
required joint SFA capabilities across all warfighting domains; lead 
the development of joint SFA mission essential ask lists; collaborate 
with Joint Staff and JFCOM, in coordination the Services and GCCs, to 
develop global joint sourcing solutions that recommend the most 
appropriate forces for validated SFA requirements; serve as a source of 
SFA expertise to Joint Task Forces or Combatant Command Headquarters; 
coordinate through OSD other U.S. Government agencies on future SFA-
related initiatives, strategies, concepts and plans; and assist USD 
(P&R) in identifying critical SFA skills, training, and experience.
    Additionally, as you may know, several years ago we established the 
Joint Center for International Security Assistance to capture and 
analyze security force assistance lessons from contemporary operations 
in order to advise combatant commands and Military Departments on 
appropriate doctrine, practices, and proven tactics, techniques, and 
procedures to prepare for and conduct security force assistance 
missions efficiently. That activity currently reports to me, but that 
alignment is under review. Finally, I should mention that all SFA-
related activities in the Department are under review in the current 
Quadrennial Defense Review, which is assessing gaps in SFA 
capabilities, alignment of responsibilities and authorities, and SFA 
process.
    With respect to your questions on police, DOD requires some 
capability to train and equip police forces to succeed in contingencies 
where a non-permissive environment either disallows or severely 
constrains the deployment of civilian professionals. But my strong 
preference is that the U.S. Government develops a civilian 
expeditionary capability that includes a robust police training 
component. Until this exists, DOD will have to fill the gap, as we have 
done in Iraq and Afghanistan.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (section 
1206) and the security and stabilization assistance authority (section 
1207). There is growing debate over whether these temporary authorities 
should reside in DOD or the Department of State, if they are continued 
beyond their current authorizations.
    What should be our strategic objectives in building the capacities 
of partner nations?
    Answer. Building the capacity of foreign partners to counter 
terrorism and promote regional stability around the world is an 
investment in a preventive strategy that is fundamental to our national 
strategy. There are several reasons why this is true. First, we can 
save American lives and reduce stress on U.S. forces by helping 
partners solve problems before they become crises that require major 
U.S. military interventions. Second, the United States does not have 
sufficient military forces to deny terrorists sanctuary everywhere in 
the world. So we must rely on partners: helping to build their capacity 
and creating networks of partners working together to counter 
terrorism. Third, if properly trained and equipped, foreign forces can 
often be more effective than U.S. forces because they know the 
language, politics, culture, and human terrain. Fourth, the enemy uses 
as a recruiting tool the large U.S. military footprints abroad. Capable 
foreign forces can alleviate requirements for large U.S. military 
footprints. Finally, the United States is at peace with many countries 
where terrorists enjoy sanctuary or where instability threatens our 
security interests. So we must work with and through them to help 
reduce terrorist space, capability, and influence and to help promote 
stability.
    These concepts are now firmly embedded in our defense guidance 
documents and the Services and combatant commands have earnest efforts 
underway to implement that guidance. In DOD's Guidance for Employment 
of the Force, preservation of peace and security is as important as 
combat operations. DOD's Guidance for Development of the Force now puts 
a premium on development of U.S. capabilities to assist foreign 
partners. Our global counterterrorism plan, which has both kinetic and 
indirect lines of operation, now prioritizes the indirect lines 
(working with and through partners) as the decisive and priority lines. 
Two sweeping DOD Directives require the Services and combatant commands 
to develop capabilities to conduct stability operations and irregular 
warfare that are on par with combat capabilities. Finally, we have 
created the DOD Building Partnerships (BP) portfolio, one of nine 
portfolios that together are inclusive of all of the activities of the 
Department. Our BP portfolio gives the United States a horizontal look 
across BP programs and activities within DOD so we can make better 
investment decisions in this important area.
    Question. What is your assessment of these temporary capacity-
building authorities, in particular section 1206 and section 1207?
    Answer. As stated above, each geographic commander has cited 
section 1206 as the most important program he has to address rapidly 
threats and opportunities in their theater. State Department 
Ambassadors also speak very highly of this program. We consider it our 
gold standard security assistance program. It is critical to reducing 
military risk on a preventative basis. I will continue to advocate for 
a permanent authority.
    Section 1206's flexibility allows it to meet urgent and emerging 
threats or opportunities. Funds are not earmarked, but allocated 
against priorities using a merit-based process. It requires joint DOD-
Department of State formulation and approval of programs. This has 
brought about significantly improved interagency cooperation and 
effectiveness in meeting goals in the areas of building partnership 
capacity.
    In addressing train-and-equip authorities, the recent mark-up by 
the HASC recognized the significant and ``fundamental distinction of 
purpose between [FMF] requirements generated on behalf of the partner 
nation (consistent with U.S. policy), and [section 1206] requirements 
generated through a DOD-led assessment of United States' national 
security needs . . . .'' This recognition by the HASC is a significant 
and positive shift in philosophy.
    Section 1206 needs to be kept closely tied to DOD's mission. It 
should not be used to: (1) backfill State FMF shortfalls; (2) fund 
activities with long production times that will not meet priority 
military needs; (3) fund programs appropriately funded by other means 
(e.g., counternarcotics funds); or (4) serve as a tool of near-term 
convenience (e.g., a political quid pro quo).
    There are some perpetual misconceptions about section 1206 and 
DOD's appropriate role in security assistance that I would like to 
clear up. Foremost, the program is often portrayed as a DOD run on a 
State Department mission. However, DOD has executed train and equip 
missions on behalf of the Secretary of State for decades. Section 1206 
introduces only two innovations. It allows DOD to pay for security 
assistance programs, and it allows DOD to vote on which programs are 
implemented. In other words, complaints about section 1206 are driven 
by concerns over budgetary jurisdictions that have nothing to do with 
national security or the prerogatives of the Department of State. The 
Secretary of State exercises oversight of the program and DOD simply 
``pays'' and also ``votes.''
    In my view, this shared jurisdictional model is a very good one. 
DOD requires shared jurisdiction with State over the provision of 
security assistance in cases where we bear the preponderance of risk, 
including risk to the lives of our servicemembers. In my mind, there 
are four clear cases: (1) Combat operations where security assistance 
is a strategic imperative (i.e. Iraq Security Forces Fund, Afghanistan 
Security Forces Fund); (2) Security assistance to partners that 
directly affect the outcome of combat operations (Pakistan 
Counterinsurgency Capabilities Fund); (3) Security assistance to 
partners who will deploy with the United States for combat operations 
or other multi-national operations; and (4) Security assistance to 
respond to urgent threats or opportunities, to help partners solve 
problems before they become crises requiring major military 
interventions (e.g. section 1206).
    Our requirement for section 1207 Security and Stabilization 
Assistance authority is similar. DOD should be able to effect cash 
transfer to State for the execution of civilian assistance programs 
that buy down military risk. Stability in Haiti, for instance, has 
remained a concern. We know from historical experience that instability 
led to mass migration, triggering deployment of U.S. forces to restore 
stability. We therefore supported a set of section 1207 civilian 
programs that ultimately resulted in stabilization of Cite Sole, which 
for decades has been the major source of political instability in the 
capital. Those section 1207 programs created an environment that was 
permissive enough to pave the way for millions of dollars of follow-up 
aid that reinforced the initial effort. Georgia is another good 
example. After Russia's invasion of Georgia last year, section 1207 was 
the most flexible and responsive program the U.S. Government had to 
provide food and livelihood support to Internally Displaced Persons and 
to rebuild police capacity. This was the first aid received by the 
Government of Georgia. It was critical to restoring stability, which 
was very much in our national security interest. Not every section 1207 
program is going to succeed or turn a country around, but we need the 
ability to look for opportunities like this to buy down security risks.
    Question. What role should the combatant commander play in 
determining the security assistance requirements within the commander's 
area of responsibility?
    Answer. The Secretary of Defense tasks GCCs to develop plans to 
achieve desired theater end states that support enhancement of U.S. 
security and that of our allies. One of the most important tools they 
employ in the development of those plans is security assistance. But 
their plans are developed in coordination with country teams that 
include military security cooperation officers, and combatant command 
plans must also support Embassy mission strategic plans. The section 
1206 program exemplifies this model. Joint formulation of program 
proposals is highly encouraged and has become the norm, and Embassy and 
combatant command concurrence is required for any proposal to be 
considered. It is also important to note the critical role of the 
foreign partner, who must also agree to the program in support of a 
shared security interest.
    Question. What should be the relationship of the global train and 
equip authority to other security assistance authorities, such as DOD 
counternarcotics assistance and State Department foreign assistance and 
foreign military financing?
    Answer. We are diligent in our deconfliction of section 1206 with 
counternarcotics (CN) funds and have disapproved section 1206 proposals 
that were clearly aimed at subsidizing CN efforts. That said, Congress 
has disapproved some section 1206 proposals in SOUTHCOM that we 
considered valid. In particular, we would like to use section 1206 in 
SOUTHCOM to train and equip professional SOFs to build additional 
defensive layers along our southern water border. Some Congressional 
staff have expressed the view that a terrorist threat must be extant in 
SOUTHCOM in order to use global train and equip. That is a pre-
September 11 view of the world. Any terrorist organization can buy its 
way into the illicit networks and routes to our South. We would like 
the flexibility to train and equip foreign SOFs that may not otherwise 
be a priority for counternarcotics funding.
    With respect to foreign military financing (FMF), we consider this 
to be a long-term strategic tool that is of importance to DOD and the 
United States, but this program does operate under a number of 
significant constraints. The administration has initiated a review of 
security assistance authorities, which will address some of these 
current constraints, and Congress will likely see the results of that 
review in the form of change proposals in the next legislative cycle. I 
would prefer to defer on any other particulars pending the outcome of 
that review.
    Question. In the last few years, some of the security assistance 
provided has gone to countries that may have troubling records on human 
rights issues or civilian control of the military in the past. How do 
authorities like section 1206 seek to ensure the near term, national 
security critical benefits of the assistance we provide do not produce 
long-term negative consequences?
    Answer. Train-and-equip programs like section 1206 help our 
partners gain security capabilities that can stabilize ungoverned 
areas, consequently depriving terrorist organizations of potential safe 
havens. This authority also assists our partners in securing their 
national borders, restoring legitimate authority, and establishing the 
rule of law--all elements that strengthen democracy and governance.
    The Department's current train-and-equip programs are implemented 
according to statutory requirements that no equipment, supplies, or 
training that are prohibited may be provided by any provision of law, 
nor may a capacity-building program be provided for any foreign country 
that is otherwise prohibited from receiving such type of assistance 
under any other provision of law. Both the General Counsel of DOD and 
the Legal Adviser at the Department of State certify that each project 
complies with all legal requirements before they are approved by the 
Secretaries of Defense and State. In particular, we rely heavily on our 
colleagues at the Department of State for the vetting of recipient 
units in accordance with the Leahy amendments.
    In addition to abiding by the statutory requirements, before 
implementing any train-and-equip program, we carefully assess, in close 
consultation with the Department of State, the potential political and 
military implications a program may have on partner nations. Program 
development and collaboration in the field between the chief of mission 
and the combatant commander is the first step in a rigorous inter-
departmental process to target our security assistance toward 
appropriate military units within a country. This process continues in 
Washington through close coordination by the regional and functional 
offices at the Departments of Defense and State and culminates in 
approval by the Secretary of Defense, with the concurrence of the 
Secretary of State.
    Special efforts must be made to avoid human rights violations that 
can result from myopic security assistance efforts. As you are aware, 
under section 1206, we are not authorized to provide equipment, 
supplies, or training to a foreign military unit unless it has been 
vetted for information regarding human rights violations by the 
Department of State. Both Departments consider the protection of human 
rights as a paramount concern, and we devote a considerable amount of 
time, analysis, and effort in critically vetting every proposed train-
and-equip program to ensure the units receiving assistance do not have 
a history of human rights abuses. In addition to their role in vetting 
recipient units in accordance with the Leahy amendments, we also rely 
on our colleagues at the State Department to assess human rights and 
foreign policy implications broadly as part of the requirement for the 
Secretary of State's concurrence in all section 1206 programs.
    Military train-and-equip programs must uphold the cornerstones of 
democracy--human rights and fundamental freedoms, and the rule of law. 
Please be assured that we share your concerns about promoting human 
rights, building enduring stability, and creating an environment for 
good governance to prevail.
    Question. In a speech to the Nixon Center in January, you argued 
for a whole-of-government approach and said that the military should be 
more willing to say when the Armed Forces are not ``the best choice to 
take the lead.'' You also said you would support transferring DOD 
resources to other U.S. Government departments when needed.
    What factors do you believe should be considered in determining 
those situations in which the Armed Forces should step back from taking 
the lead in favor of other civilian agencies?
    Answer. In a permissive environment, I believe the State Department 
should have the lead in the conducting of stability operations; with 
DOD in a supporting role, if required. This is playing out in our 
planning for the responsible drawdown in Iraq.
    Question. Do you continue to see a need to be able to transfer DOD 
resources to other U.S. Government departments?
    Answer. Yes. We routinely run into situations where other 
Departments have the authority to conduct an activity that is critical 
to DOD, but they lack the funding to provide the support we need. I 
believe we should consider an authority whereby DOD could exercise cash 
transfers to other Departments in certain circumstances--to reduce risk 
to the lives of our servicemembers or other Government employees, for 
instance, or to pay for an activity that will significantly reduce the 
cost of DOD operations. I would cite as an example our desire to 
provide air traffic control equipment to a particular Central Asian 
country, which would enable it to handle more of our logistics flights 
into Afghanistan. Because this nation's air traffic control is provided 
by a contractor, DOD is challenged to find the authority to fund a 
capability that could save the U.S. Government millions of dollars in 
transportation costs.
                      combatant command structure
    Question. In recent years, U.S. Africa Command and U.S. Southern 
Command have adopted command structures that embed civilian personnel 
from other government agencies, such as the State Department, the Drug 
Enforcement Agency, the Federal Bureau of Investigation, and others.
    What is your view of this type of command structure and do you 
believe it should be adopted by the other GCCs?
    Answer. There is a clear need to continue our efforts to improve 
DOD/Interagency coordination. We continually assess and analyze our 
interagency cooperation and coordination efforts, and will press 
forward with best practices and solutions. Nevertheless, there is no 
``one-size-fits-all'' combatant commander structural model for 
improving interagency coordination. I believe it is particularly 
appropriate for combatant commands that are not actively engaged in or 
potentially confronted by major combat operations, to investigate the 
feasibility of new structures and processes that support this goal.
    SOUTHCOM, for example, has adopted a strategy-focused staff 
organization with a goal of seamless interface with interagency 
counterparts. AFRICOM, on the other hand, has eliminated the 
traditional J-code structure, combining complimentary functions and 
significant structural modifications to accommodate the interagency. 
Importantly, we have seen improvement in interagency participation and 
coordination in both commands.
    I would point out, however, that our other combatant commands are 
actively pursuing, and achieving, a high degree of interagency 
integration and cooperation.
    All of these efforts strongly suggest we are on a positive 
trajectory toward our goal of achieving a comprehensive, integrated 
government-wide approach.
                       special operations command
    Question. The Commander of SOCOM recently submitted a number of 
proposals to OSD designed to improve the coordination between SOCOM and 
the Services related to personnel management issues, including 
assignment, promotion, compensation, and retention of SOFs. Included in 
these proposals was a modification of section 167 of title 10, U.S.C., 
that would change the role of the SOCOM Commander from ``monitoring'' 
the readiness of special operations personnel to ``coordinating'' with 
the Services on personnel and manpower management policies that 
directly affect SOFs.
    Do you support a change to title 10, U.S.C., to give the Commander 
of SOCOM greater influence on personnel management decisions and 
policies related to SOFs?
    Answer. I support the coordination between SOCOM and the Services 
related to personnel issues. OSD has directed this close coordination 
and included language in DOD Directive 5100.01 that meets the intent of 
SOCOM Commander's proposals. In discussion with the SOCOM Commander and 
the Services, I believe that a modification to section 167 of title 10, 
U.S.C. is not needed at this time.
    Question. Earlier this year, the Commander of SOCOM testified that 
``We are and will be dependent upon our Service partners for key force 
enablers. The non-availability of these force enablers has become our 
most vexing issue in the operational environment.''
    Do you agree that there is a shortage of enablers for missions 
carried out by SOFs? If so, how should these shortages be addressed?
    Answer. Yes. Over the past few years, we have significantly grown 
our SOF combat capabilities, but did not proportionally grow enablers 
for those SOF elements. Since SOF elements are not sized or resourced 
to maintain a large support structure, the bulk of SOF enabler support 
must be provided by the Services or GCCs.
    To address these shortfalls, SOCOM has begun several initiatives 
focused on internal reprioritization, growing their own force 
structure, and force management. Although SOCOM currently estimates 
their current enabler shortage through 2015 to be approximately 30-35 
percent, their proposed QDR 2010 initiatives would reduce those 
shortages by 10 percent. SOCOM is currently considering a variety of 
other initiatives, including GCC and Service provided support, to 
address the remaining shortfalls, and once complete, will forward those 
for my review.
                   army ground combat vehicle program
    Question. The Department's fiscal year 2010 budget request includes 
cancellation of the family of armored manned ground vehicles in the 
Future Combat Systems (FCS) program. In announcing his decisions to 
restructure FCS and cancel the manned ground vehicle, and then again 
later in a speech at the Army War College, Secretary Gates emphasized 
his commitment to help the Army get a new ground combat vehicle (GCV) 
in 5 to 7 years and promised to protect the Army's future year's funds 
that had been aligned with the FCS program for this purpose.
    What, in your view, is the appropriate schedule for developing a 
new GCV system?
    Answer. I support Secretary Gates' commitment to help the Army 
field a new GCV in 5 to 7 years. In the fiscal year 2010 FCS budget 
decision, an important factor was the need to focus that investment on 
delivering useful military capability sooner than later. I think the 
timeline proposed by the Army is reasonable. It will help allow 
inclusion of the lessons from the current fight over time, to see what 
changes are needed, and incrementally make these changes.
    Question. What is the operational urgency, if any, in fielding a 
new GCV in a 5-7 year timeframe?
    Answer. We have learned much over the last 8 years of war. The 
Department must strike a balance between what equipment is needed for 
today's fight with what equipment is desired for the future. Persistent 
conflict and the complex nature of the threat are re-defining the 
timelines for modernization. The enemy is more rapidly adapting its 
tactics to exploit weaknesses in our current combat vehicles, even as 
enhancements are made to counter those changing threats. Some of our 
combat vehicles have increased vulnerabilities due to space, weight, 
and power limitations that cannot be resolved by further upgrades alone 
as with the Bradley Fight Vehicle and the M113 family of vehicles. 
Despite our enhancements, survivability and vehicle protection 
requirements clearly demonstrate the need for a faster and more 
flexible GCV acquisition approach to field capabilities quickly and 
efficiently, when and where needed. The Joint Staff is supporting the 
Army as they fundamentally relook their requirements for a new GCV, as 
well as the BCT modernization strategy. The Army is also working 
closely with the Marine Corps in this refocused effort, and is 
scheduled to outline its requirements way ahead to the JROC this fall.
    Question. Are you confident that DOD will protect the Army's 
original FCS funds to start and sustain a new ground vehicle 
modernization program?
    Answer. Yes. The Department is committed to start a new GCV 
modernization program that strikes the right balance to address the 
span of threats current and in the future that we will likely face. 
There will be challenges ahead to reset, reconstitute, and revitalize 
our force with investments that pay dividends today, tomorrow, and well 
into the future.
    Question. If confirmed, what actions will you take to ensure that 
DOD provides the funds as promised?
    Answer. If confirmed, I will remain fully committed to providing 
the best possible military advice to our Nation's leaders and to ensure 
the necessary resources are provided to strike the right balance to 
prevail in our current conflicts while also maintaining, equipping, and 
preparing the force for the challenges of tomorrow. I believe that the 
new GCV modernization program is part of the Army effort to strike this 
balance.
             intelligence, surveillance, and reconnaissance
    Question. Recently, the Office of Operationally Responsive Space 
(ORS) launched the TACSAT 3 small satellite with a payload, know as 
Artemis, that can be used by commanders in the field. ORS is also in 
the process of developing an additional small satellite, ORSSAT 1, 
specifically designed to be taskable by the commanders in the field.
    In your view, how will these small satellites provide additional 
needed ISR capability not currently available in Afghanistan and 
elsewhere?
    Answer. Small, low cost satellites can provide the joint warfighter 
with highly responsive capabilities to meet unanticipated or otherwise 
unmet needs.
    TACSAT-3 was designed to assess the military utility of hyper-
spectral imaging and test real-time data downlink to a theater. Once 
the demonstration is complete, residual capability/capacity may be 
available to the warfighter to support theater needs.
    ORS-1 is intended to exercise our ability to quickly provide 
capability to the warfighter. Once built and launched, it is 
anticipated it will meet specific CENTCOM needs.
    Lessons learned from these activities might not only assist filling 
current joint warfighter needs, but also improve our Nation's ability 
to provide options to meet future joint warfighter needs.
                     reductions in nuclear weapons
    Question. The President has made a commitment with Russian 
President Medvedev to bilaterally reduce the number of operationally 
deployed nuclear warheads.
    Do you believe reductions in the total number of warheads, both 
reserve and operationally deployed are feasible?
    Answer. I believe the United States, with similar reductions by 
Russia, can reduce the total number of nuclear warheads, and still 
maintain an effective deterrent. The New Strategic Arms Reduction Talks 
(START) Treaty negotiations do not address nuclear weapons in Reserve 
status, only operationally deployed weapons. The proposed range of 500-
1,100 strategic delivery vehicles (which includes heavy bombers, ICBMs 
and SLBMs) and a limit of 1,500-1,675 warheads will be sufficient to 
maintain U.S. strategic deterrence. The currently ongoing Nuclear 
Posture Review is looking at these potential reductions in both its 
international dimensions and from a stockpile and infrastructure 
perspective and is fully informing our START Follow-On negotiating 
team. This review will help United States ultimately decide on the 
supportable limits.
    Question. Do you believe reductions in the total number of START 
accountable delivery systems could also be reduced in a bilateral 
context?
    Answer. Yes. In the Joint Understanding issued by both President 
Obama and Russian President Medvedev, it stated that each nation would 
determine for itself the composition and structure of its strategic 
offensive arms. This is as in past agreements, where the United States 
has opted to maintain a larger force structure of delivery vehicles 
with a smaller number of warheads associated with each. The Russian 
Federation has done the opposite and has maintained fewer strategic 
delivery vehicles with a larger number of warheads associated with 
each. Therefore, while the number of START accounted delivery systems 
can be reduced, these sovereign choices may require a negotiated range 
of delivery vehicles.
    Question. If your answer to the two questions above is yes, how 
should capabilities and requirements be evaluated to identify which 
warheads and delivery systems could be retired and dismantled?
    Answer. The Nuclear Posture Review, which has been underway for 
several months, is examining that exact issue. Specific reductions in 
warhead types or delivery systems have to be studied carefully to 
assess the impact on military requirements while being cognizant of the 
challenges associated with maintaining a rapidly aging stockpile. The 
review is taking into consideration practical reductions in the role 
and number of nuclear weapons in order to strengthen our nuclear 
deterrent and enhance the security environment. The review is looking 
at over 100 separate program items and is taking into consideration 
maintenance of the nuclear triad and its associated warheads. The final 
recommendations will be a product of national security strategy 
guidance, stability and stockpile management. In addition, we will 
evaluate our capabilities and requirements with a continued focus on 
major power stability and an increased emphasis on extended deterrence 
and assurance of our allies and friends.
                        nuclear force structure
    Question. With the recent changes in operations and management in 
the Air Force designed to address the problems from the last decade 
that culminated in the mistaken transport of nuclear weapons on a B-52 
bomber, there appear to be significant improvements in the nuclear 
enterprise. One of the underlying causes of the many problems was a 
lack of attention and support for the nuclear enterprise from senior 
military and civilian leadership.
    How will you ensure that the senior leadership is provided?
    Answer. The mission of safeguarding our vital nuclear capabilities 
and maintaining our nuclear deterrence mission requires leadership at 
the highest levels. Even though the Air Force has made good strides in 
addressing some of the problems from the last decade, there is more to 
be done.
    Work is already underway to place a greater emphasis on the nuclear 
deterrent mission within the Joint Staff and the Services. I have 
directed standup of an organization on the Joint Staff headed by a 
senior executive service civilian to focus on the nuclear mission, and 
am devoting additional staff resources to enhance development of 
nuclear strategy, plans, policies, exercises, and analysis. I am also 
directing the Joint Staff to assess resourcing and timelines for 
developing curricula to educate joint officers in deterrence theory and 
nuclear doctrine in order to provide for future leadership.
    I am providing pertinent program inputs to enhance the requirements 
development process via the Vice Chairman of the JCS, who serves as my 
representative to the Nuclear Weapons Council. The Vice Chairman is 
also deeply involved in addressing many of the issues and concerns 
associated with strengthening the nuclear enterprise within the 
department. This is an important leadership role that I take very 
seriously and will continue to emphasize as we work to bolster 
confidence in our nuclear deterrence capabilities.
    I also strongly support the Services' efforts to correct the 
mistakes of the recent past and prevent their reoccurrence, as well as 
strengthen senior leadership involvement within the greater U.S. 
nuclear enterprise. I fully endorse the changes made by the Air Force 
to date, including forming a strategic deterrence and nuclear 
integration directorate within the Air Staff and their recent standup 
of a new major ``Air Force Global Strike Command,'' which will be 
responsible for the organize, train, and equip functions for nuclear 
operations within their service component.
    Question. Some concern has been expressed that future reductions in 
nuclear weapons and delivery systems will once again undermine the 
ability to manage the nuclear enterprise effectively.
    How will you ensure that the necessary reductions in the nuclear 
arsenal do not undermine the need to maintain the arsenal and ensure 
that it is secure and accounted for?
    Answer. The security and reliability of our Nation's nuclear 
stockpile is of paramount importance. We must be vigilant against the 
tendency to believe that a reduction coincides with a de-emphasis. The 
Air Force has taken significant steps over the last 2 years to improve 
its organizational alignment and command focus. The Services, U.S. 
Strategic Command, and the Joint Staff are also working closely with 
the National Nuclear Security Administration and the Department of 
Energy to ensure that the nuclear enterprise remains effective in 
supporting the stockpile even as we continue to reduce the number of 
nuclear weapons.
    We need top down focus on the recapitalization of an aging DOD and 
Department of Energy infrastructure. I view this as a critical 
requirement, and plan to work closely with the Commander, U.S. 
Strategic Command, the Service Chiefs, and congressional leadership to 
place greater emphasis on the need to invest for a safe, secure, and 
effective nuclear arsenal.
                   guantanamo bay detention facility
    Question. Do you support closing the detention facility at the 
Guantanamo Bay Naval Base?
    Answer. Yes, I have said so publicly since 2005. I support the 
President's decision to close the detention facilities at Guantanamo 
Bay. On 22 January 2009, President Obama signed Executive Order 13492 
ordering the closure of the detention facilities at Guantanamo Bay 
within 1 year. We are making every effort to meet that deadline.
    The Joint Staff and DOD are working with departments and agencies 
across the U.S. Government to conduct a comprehensive review of our 
detention policy and to develop a plan for closure of the detention 
facilities at Guantanamo Bay.
                             future of nato
    Question. In your view, what existing or new missions should be the 
focus of NATO's strategic efforts over the next 5 years?
    Answer. NATO should concentrate its strategic efforts first on 
Afghanistan. This will require continuing emphasis on sustaining and 
increasing the international community's support and resourcing of our 
efforts on the ground in Afghanistan. Strategic outreach, engagement, 
and cooperation with the international community, to include the 
European Union and the United Nations, and other appropriate 
organizations remain critical to this approach.
    I believe that other strategic priorities for NATO include: the 
move to deterrent presence in Kosovo; consolidating gains and further 
capacity-building in ISFs through the NATO Training Mission-Iraq (NTM-
I); and counter-piracy efforts in the Horn of Africa. This latter 
mission is closely linked to NATO support to the African Union, which 
can address some of the root causes of piracy.
    Question. In your view, how should NATO proceed on the issue of 
further enlargement of the alliance over the next 5 years?
    Answer. The question of NATO enlargement is largely a political one 
that must be addressed by President and Congress for the United States, 
and by the governments of the other 27 NATO nations.
    Question. Are you satisfied with the progress of NATO member 
nations, particularly new member nations, in transforming their 
militaries, acquiring advanced capabilities, and enhancing their 
interoperability with the United States and other NATO member nations? 
Where do you see room for improvement?
    Answer. Yes. While Allied progress in these three areas varies from 
nation to nation, each nation is continuing, within its own means and 
capabilities, to make progress. Much of this progress is driven by the 
increasing demands of the many ongoing NATO-led operations, 
particularly, the operation in Afghanistan. The participation of the 
Alliance and of each of its individual member states over the past 6 
years in ISAF is producing forces that are increasingly more deployable 
and sustainable. It has also resulted in the development of enhanced 
Alliance capabilities, and has significantly improved the 
interoperability between not only U.S. and other allied forces, but 
also between the 28 NATO nations and the 14 other partner nations 
participating in this operation.
    Despite the Alliance's accomplishments, I believe that NATO must 
continue to develop its capability for response to evolving threats and 
challenges in new ways. Cyber warfare and counter-piracy are areas in 
which the Alliance can further its ability to work in a comprehensive 
manner with other international organizations like the European Union, 
the United Nations, the World Bank, and non-governmental organizations. 
Working in concert with these entities clearly enhances the Alliance's 
ability to address emerging threats as well as existing challenges in 
Iraq and Afghanistan. There is also work to do on the defense 
investment front. Only five European nations consistently meet the NATO 
goal of investing at least 2 percent of GDP in defense. Many NATO 
countries need to invest more.
    Question. What steps if any could or should NATO take, in your 
view, to reduce tensions with Russia?
    Answer. NATO should continue to use the NATO-Russia Council (NRC) 
as the primary mechanism for Russian and Allied consultation, consensus 
building, cooperation, joint decision and joint action, and as the 
forum for dialogue with Russia with a view towards resolving problems 
and building practical co-operation. In fact, the NRC Foreign Ministers 
met in Greece on 27 June where, among other things they identified 
common security interests, such as the stabilization of Afghanistan, 
arms control, non-proliferation of weapons of mass destruction and 
their means of delivery, crisis management, counterterrorism, 
counternarcotics, and counterpiracy.
            united nations convention on the law of the sea
    Question. In connection with your first nomination to be Chairman 
of the JCS, you answered questions on your support for U.S. accession 
to the United Nations Convention on the Law of the Sea.
    Do you stand by your answers provided at that time expressing 
support for U.S. accession to the convention?
    Answer. I continue to stand by my answers. I am on record in Senate 
and House hearings on the United Nations Law of the Sea Convention in 
2003 and 2004 fully supporting United States accession to it. In all 
there have been eight full committee congressional hearings since 2003. 
All views have been fully aired. The time has come to stop going over 
the same ground. I urge the Senate to provide its advice and consent as 
soon as possible. Since President Reagan's direction in March 1983, 
U.S. Armed Forces have been implementing and relying on the Convention 
around the world.
    By remaining outside the Convention, we give up the firmer 
foundation of treaty law for navigational rights vital to our global 
mobility. There are significant national security impacts from failing 
to join the Convention.

    <bullet>  The United States must accede to the Convention to remain 
the leader in the development of the law of the sea and to protect our 
national security.
    <bullet>  With over 150 countries that have ratified the Convention 
(including all our major allies except Israel and Turkey), the failure 
to join maintains the United States in non-party status with Iran, 
North Korea, Syria, and Venezuela.
    <bullet>  Global security depends upon a partnership of maritime 
nations sharing common goals and values. One of the most important of 
those values is respect for the rule of law. By failing to join the 
Convention, some countries doubt our commitment to act in accordance 
with international law.
    <bullet>  The United States is outside the process that influences 
law of the sea developments such as the International Tribunal for the 
Law of the Sea, the International Seabed Authority (where we would have 
blocking authority on deep seabed claims), and the Commission on the 
Limits of the Continental Shelf (which will rule on claims by Arctic 
nations, such as Russia).
    <bullet>  We do not have access to the sole process for gaining 
international recognition with legal certainty of our sovereign 
resource rights beyond 200 nautical miles, especially in the Arctic 
where Russia has already made efforts to stake its claims. The United 
States is the only Arctic nation not a party to the Convention.

    Question. Military and civilian leaders in DOD have consistently 
articulated their support for accession to the convention and have 
stressed the benefits for our national security.
    What is being done within DOD and the Military Departments to help 
secure U.S. accession to the Law of the Sea Convention?
    Answer. We have continued to express our clear support for the 
Convention to the new administration, as we did with the past 
administration. We were pleased to see that the Convention is listed as 
one of the Obama administration's Treaty priorities. We have strongly 
advocated for the Convention in the Interagency Ocean Policy Task 
Force, in which the Joint Staff participates. Finally, and most 
important, our military continues to rely on the provisions of the 
Convention--for example: in the conduct of counter-piracy operations in 
the Horn of Africa, to transit through the Strait of Hormuz, or to 
conduct military activities in the Pacific--demonstrating by our 
actions that the Convention helps the United States protect our 
national security.
                      united nations peacekeeping
    Question. In recent testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.'' She also pointed out 
that the United States currently has 93 personnel assigned to U.N. 
operations, fewer than 65 other member states including the other 4 
permanent members of the U.N. Security Council.
    What is your view on whether the United States should contribute 
more military personnel to both observer and staff positions in support 
of U.N. peacekeeping operations?
    Answer. Current U.S. military operations proscribe any substantial 
commitments of U.S. forces to U.N. Peacekeeping missions and I do not 
see that changing for the foreseeable future. However, as our 
commitments change we will weigh opportunities for a more active role 
in support of U.N. Peacekeeping Operations.
    I consider U.N. peacekeeping operations to be extremely important 
and cost effective in comparison to unilateral operations. The United 
States contributes slightly more than one-quarter of the U.N. 
peacekeeping budget, and when requested, we coordinate support to U.N. 
operations such as airlift, intelligence, and the deployment of highly 
skilled military staff officers/observers to assist the U.N. in the 
planning and conduct of peacekeeping operations. The U.N. currently has 
about 95,000 uniformed peacekeepers deployed worldwide and this number 
is growing. These peacekeepers help promote stability and help reduce 
the risks that major U.S. military interventions may be required to 
restore stability in a country or region. Therefore, the success of 
these operations is very much in our national interest.
    By law, I maintain a small division in support of the U.N. Military 
Staff Committee. These officers directly support Ambassador Rice and we 
are in the process of boosting that staff from 3 to 10. This division 
is working closely with U.N. Force Generation Services to increase the 
number of U.S. staff officers and observers assigned to U.N. 
peacekeeping operations. In addition, these officers are working to 
ensure U.N. peacekeeping mandates have realistic objectives and 
attainable goals.
    Finally, my staff, in coordination with the State Department and 
combatant commands, also assists with development and execution of 
plans to grow peacekeepers around the world through the Global 
Peacekeeping Operations Initiative. As of June 2009, over 81,000 
military personnel from 75 countries have been trained.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. In some circumstances, U.S. participation and leadership 
can act as a catalyst that encourages other nations to participate. We 
recognize that some countries might be more inclined to contribute 
military forces if the United States commits forces to U.N. 
peacekeeping efforts, especially specialized capabilities and skills 
that are in short supply. In addition, U.S. participation can certainly 
improve the prospects for mission success because we do have the most 
capable military forces in the world. That said, however, U.S. military 
forces are not necessarily what the U.N. needs the most from the United 
States There are political and regional sensitivities that need to be 
taken into consideration when deploying Western troops to developing 
nations. So it is often more efficacious for the United States to 
contribute enabling capabilities, either unilaterally or together with 
partners, and in some circumstances, skilled military staff that have 
high mission leverage but a small footprint.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important to this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to the appropriate and necessary security 
protection, with respect to your responsibilities as the Chairman of 
the JCS?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jim Webb
                       quadrennial defense review
    1. Senator Webb. Admiral Mullen, during the new administration's 
Quadrennial Defense Review (QDR), it is important that we do not lose 
sight of the larger aspects of national strategy that can fall away at 
the expense of today's short- and mid-term ground commitments in Iraq 
and Afghanistan. In our current strategic environment, these 
commitments can affect force structure in the short-term but really not 
play out to our national advantage in the long-term. We need a viable 
force structure that addresses our long-term strategic interests. The 
roles and missions of the Marine Corps dating to the Key West 
agreements in 1948 revolve around a narrowly defined amphibious warfare 
mission. However, the reality is that the Marine Corps has served as 
the Nation's initial-reaction force for more than 200 years--a force 
ready to act decisively to preserve the peace on foreign shores short 
of war, to protect American lives abroad, to fight insurgents, and, 
since World War I, to participate in extensive land campaigns. Will the 
QDR address this contradiction and formally recognize the Marine Corps' 
enduring role as the Nation's force in readiness?
    Admiral Mullen. The QDR is in progress and is planned for a 
February 2010 submission. The QDR will assess strategies and 
capabilities needed to address today's conflicts and tomorrow's 
projected threats but will not specifically address the roles of the 
Marine Corps or other Services. A separate draft directive, DOD 
Directive 5100.1, ``Functions of the Department of Defense and Its 
Major Components'' will address the functions of the Marine Corps with 
respect to specific warfighting requirements as well as those of the 
other Services. This directive, once approved, should help to resolve 
discrepancies between previously directed roles and missions and the 
current use and expectations of the Marine Corps.

    2. Senator Webb. Admiral Mullen, you testified in 2007 that a Navy 
fleet of 313 ships equates to one reflecting ``maximum acceptable 
risk''. As a maritime nation, we should improve the quality and 
strength of our seapower. Its recent trajectory--with today's Navy 
numbering 286 deployable battle force ships--is not encouraging. 
Importantly, China is seeking not only to expand its economic and 
political influence, but also to expand its territory. China's military 
modernization has directly supported this endeavor. The PLA [People's 
Liberation Army] Navy is developing blue water capabilities that will 
enable it to project power into Southeast Asia and beyond to the Indian 
Ocean and Arabian Sea. Despite these trends, several recent news 
reports have suggested that the QDR will recommend reductions in the 
number of the Navy's aircraft carriers. What is your personal view on 
the need for the Navy to maintain a fleet with a minimum of 313 ships 
and 11 deployable aircraft carriers as now mandated by law?
    Admiral Mullen. I support the warfighting analysis that underpins 
313 ships as well as that behind 11 deployable aircraft carriers. The 
QDR is in progress and is planned for a February 2010 submission and 
will examine the projected strategic environment and address threats 
posed by the use of advanced technology in all domains (air, land, sea, 
space, and cyberspace). As a broad, overarching review, the QDR will 
provide the Services with the strategic framework and guidance to 
develop specific capabilities to address projected future requirements. 
I too am concerned with the projected size of the Navy. We need to 
build to a Navy of at a minimum of 313 ships. We also need a balanced 
Navy in terms of capabilities and a robust industrial base based on a 
predicable shipbuilding plan.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                        coalition support funds
    3. Senator McCaskill. Admiral Mullen, I was concerned to read an 
article from the New York Times on September 15, 2009, suggesting that 
the Pakistani Army may be committing hundreds of murders of civilians 
in the Swat Valley, allegedly to prevent the spread of Taliban support. 
The reports come from Swat residents and human rights organizations. 
The Pakistani Army has acknowledged that bodies have turned up, but its 
spokesmen assert that the killings are the result of civilians settling 
scores vice any actions by its members. I urge the Department of 
Defense (DOD) to look into this report to determine its credibility. I 
have consistently raised concerns about the DOD's Coalition Support 
Funds (CSF) program created after September 11 to reimburse countries 
like Pakistan for their logistical activities and military operations 
aimed at defeating terrorism in concert with U.S. strategic objectives. 
As you may know since late 2001, Pakistan has received almost $6 
billion in CSF, which equates to about 80 percent of the total $7.6 
billion allocated to all allied nations under the CSF program. The 
Pakistani Army has not always applied these funds with prudence, and 
oversight for the CSF funds has been spotty. The possibility that the 
Pakistani Army could be receiving U.S. funds while potentially harming 
Pakistani civilians is of great concern and should be investigated. 
Does DOD have information (unclassified or classified) confirming or 
denying this recent story about the murders of civilians by the 
Pakistani Army? If so, please provide a detailed summary of the 
validity or inaccuracy of this report.
    Admiral Mullen. [Deleted.]

    4. Senator McCaskill. Admiral Mullen, what oversight mechanisms are 
in place to monitor activities by Pakistani forces operating in places 
like the Swat Valley on behalf of the U.S. Government to ensure that 
human rights abuses are not being conducted and subsequently funded by 
the U.S. taxpayer via CSF or other programs?
    Admiral Mullen. Our training programs with the Pakistan Military 
(PAKMIL) incorporate human rights training and stress the need to 
conduct counterinsurgency operations in compliance with the Law of War 
including the Geneva Conventions. DOD and Department of State have 
established Human Rights Vetting procedures to comply with the Leahy 
Amendment for all training and assistance programs provided to the 
PAKMIL. CSF is a reimbursement for operating expenses incurred by 
Pakistani security forces but is paid to the Pakistan government's 
general fund. The PAKMIL provides periodic updates to our Embassy in 
Islamabad on their planned operations. The U.S. Government monitors the 
reimbursement of operating expenses; however, international bodies 
oversee allegations of human rights abuses.

    5. Senator McCaskill. Admiral Mullen, please provide your most 
recent assessment of the Pakistani Army's ability, training, equipping, 
and resolve at addressing terror threats to the United States that 
exist in its border areas.
    Admiral Mullen. Pakistan has made improvements and progress toward 
addressing their domestic security concerns, especially with regard to 
the areas that have been historical terrorist safe havens. It is a 
dramatic step forward and should be recognized here in the United 
States as progress by the Government of Pakistan (GoP) as well.
    The PAKMIL is in the fifth month of a sustained counterinsurgency 
campaign in the Northwest Frontier Province (NWFP) and portions of the 
Federally Administered Tribal Areas. Our train and equip program with 
our ally is directly tied to enhancing their counterinsurgency 
capability and supports the U.S. Government Strategic Implementation 
for our Afghanistan-Pakistan Strategy. It is a pivotal part of our 
regional security plan and has direct impact on the Afghan insurgency 
by reducing transnational terrorism threats to the United States and 
our allies. Our support to the Pakistanis is paying dividends and we 
should continue to support their efforts to defeat terrorist and 
insurgent groups contributing to improved regional stability. The 
successful operations in Swat, Makaland, Baijur, Bunner, and Lower Dir 
are partly attributable to our training and equipping efforts.
    Our team in Islamabad concludes that U.S. Government ability to 
dialog with the GoP is enhanced by our willingness to commit to the GoP 
through our efforts with Foreign Military Financing and Pakistan 
Counterinsurgency Capability Fund.

    6. Senator McCaskill. Admiral Mullen, are you confident that CSF 
being sent to Pakistan are actually being used to reimburse that 
government for legitimate operations in the fight against terrorism in 
that region and, if so, on what basis?
    Admiral Mullen. Yes; I am confident that the CSF is being used for 
legitimate operations. Over the past year we have seen significant 
increases in Pakistan's efforts to improve their counterinsurgency 
capabilities. CSF is only one part of our efforts and should be viewed 
as part of a broader security assistance program, which not only 
provides for reimbursement for military operations against terrorist 
organizations, but also builds counterinsurgency capabilities and 
provides for military modernization of the PAKMIL.
    The CSF reimbursement process is deliberate and thorough, with 
several checks and balances built into the process. The U.S. Embassy in 
Islamabad receives and endorses the claim, U.S. Central Command 
(CENTCOM) validates that the costs were incurred in support of 
Operation Enduring Freedom. The Office of the Secretary of Defense 
(OSD) Comptroller evaluates for reasonableness and alignment with 
previous claims. Our embassy in Islamabad is working closely with 
Pakistan to ensure that the process for substantiating Pakistan's 
claims for reimbursement is as thorough and transparent as possible. We 
continue to work with the PAKMIL to constantly improve CSF processes 
and efficiencies, while ensuring appropriate accountability and 
transparency for CSF.
                                 ______
                                 
               Questions Submitted by Senator John McCain
             weapon systems acquisition reform act of 2009
    7. Senator McCain. Admiral Mullen, the recently enacted Weapon 
Systems Acquisition Reform Act of 2009 focused on ensuring that DOD can 
execute contracts for major weapons on a fixed-price basis by helping 
the Department mete out, and understand, technological and development 
risk and get reliable cost estimates early in those programs' 
acquisition cycles. However, for fixed-price contracts to really work, 
requirements must be stable and clear. What specific steps has the 
Joint Staff taken, and do you anticipate will be taken, to help ensure 
the requirements of the recently enacted Weapon Systems Acquisition 
Reform Act of 2009 to implement much needed changes to the 
``requirements'' process?
    Admiral Mullen. We agree that requirements must be stable and clear 
to support improved acquisition performance. However, we have reviewed 
many programs that have underperformed and the problem in these cases 
has not normally been with ``Joint Requirements Oversight Council 
(JROC) approved'' requirements, but rather with ``derived'' 
requirements. To address this issue, my basic plan is to:

    <bullet>  Get the requirement right before we start development.
    <bullet>  Require Program Managers to brief the Configuration 
Steering Board on the impacts of modifications to derived requirements 
before approving changes.

    There are many areas where we can make process improvements to get 
the requirements right. These include:

    <bullet>  Modifying our requirements process to ensure that COCOMs 
take the lead in definition of new capability attributes. We will 
leverage the work of the Senior Warfighter Forums in this area and have 
mandated use of their attributes and metrics in our capability 
documents.
    <bullet>  Streamlining the capabilities based assessment (CBA) at 
the front end of the requirements process. Changes will help ensure the 
CBA provides a clear statement of operational requirements to support a 
subsequent Analysis of Alternatives and serves as a solid foundation 
for further evaluation of trades in cost, schedule, and performance.
    <bullet>  Continuing experiments to further involve the warfighter 
in the requirements development process. The JROC is conducting 
experiments that delegate requirements authority to functional 
combatant commands. The respective Combatant Command's Deputy Commander 
acts as Chair of the Joint Capabilities Board and serves as principal 
advisor to the JROC.
    <bullet>  Building a solid Requirements Manager Certification 
process to ensure that the people developing requirements have a better 
understanding of acquisition processes, and are aware of the potential 
impact of changing requirements once a program has been initiated.
    <bullet>  Reviewing the development and implementation of Key 
Performance Parameters. We are currently assessing the Net-Ready Key 
Performance Parameter (KPP) and the application of the Energy 
Efficiency KPP to ensure their impacts are well understood in current 
and future development efforts. Working with OSD, we will ensure that 
requirements parameters are properly defined, are testable and are 
achievable within the prescribed timeline.

    We are committed to improving acquisition performance and have 
already implemented many of the specific reforms called for in the 
Acquisition Reform Act. This includes:

    <bullet>  Facilitating increased involvement in requirements 
development and decision making by our core customer, the Combatant 
Commanders.
    <bullet>  Requiring early coordination with OSD AT&L and the COCOMs 
on Initial Operational Capability timelines for new capability 
development efforts.
    <bullet>  Inviting additional OSD advisors to participate in JCB 
and JROC deliberations. This includes not only those mandated by 
Congress (AT&L, CAPE, and Comptroller) but also others that play a 
vital role in requirements definition to include DOT&E.

    Once new requirements are developed, we will continue to work with 
OSD to ensure that they are properly translated to systems requirements 
and then are not changed without senior level review and approval.

    8. Senator McCain. Admiral Mullen, the Joint Capabilities 
Integration and Development Systems (JCIDS)--the process by which the 
Joint Staff defines acquisition requirements and evaluation criteria 
for future defense programs--is much too complex and needs to be 
revised. What principles do you think should guide specific revisions 
to the JCIDS?
    Admiral Mullen. Changes to our requirements process should be based 
on the following principles:

    <bullet>  Clear assignment of responsibility and accountability. 
The level of documentation required and the necessity to defend the 
analysis needs to reside with the advocate.
    <bullet>  Different capability needs require different levels of 
analysis and documentation. ``Leap ahead'' technology efforts require a 
diligent approach while merely replacing existing capability may allow 
more streamlined assessment.
    <bullet>  The development of Information Technology (IT) 
capabilities needs to be recognized as different and should be governed 
by processes that are able to leverage the most current technology 
without repeated trips through the requirements approval process.
    <bullet>  Administrative systems must require documents to move 
faster than the capability need.
    <bullet>  Requirements determination is more credible when informed 
by affordability and technical executability.

    We have made incremental changes to JCIDS since its inception 
almost 7 years ago and just made a major change recently, in March 
2009. These changes were based on the principles above. We are still 
evaluating the effects of these modifications.

    9. Senator McCain. Admiral Mullen, do you have any specific ideas 
on how the JCIDS should be revised to help the Department manage 
requirements creep?
    Admiral Mullen. We have conducted numerous program reviews over the 
last few years, many as a result of poor cost and schedule performance. 
When the poor performance has been related to requirements ``creep'' it 
has generally not been due to changes in JROC level KPPs but rather as 
a result of changes at the ``derived'' requirements level. The root 
causes for the poor performance at this level of requirements oversight 
is not the result of people doing bad things they are trying to get it 
right. Rather it is about not managing derived requirements in a 
structured manner with the appropriate amount of oversight. We must 
require our Program Management, Acquisition Professional, Requirements 
Management and Financial Management Team to carefully translate JROC 
approved requirements into ``derived'' requirements and mandate a 
thorough review by all parties before allowing any changes. I believe 
JCIDS should be revised or canceled.

  defense science board report on fulfilling urgent operational needs
    10. Senator McCain. Admiral Mullen, in July 2009, the Defense 
Science Board published a report on DOD's ability to fulfill urgent 
operational needs. It basically concludes that current approaches to 
implementing rapid responses to urgent needs are not sustainable. 
Citing several institutional barriers to rapid fielding of proven 
technologies, the report recommends formalizing a dual acquisition path 
by standing up a new organization and funding stream dedicated to rapid 
acquisition and fielding. What aspects of the report do you agree or 
disagree with?
    Admiral Mullen. I am in agreement with many of the report's 
findings. Specifically,

      1. All of DOD's needs cannot be met by the same acquisition 
process.
      2. Rapid is countercultural and will be undersupported in 
traditional processes.
      3. Rapid responses must be based on proven technology and robust 
manufacturing processes.
      4. An integrated triage process is needed.
      5. Institutional barriers--people, funding, and processes--are 
powerful inhibitors to successful rapid acquisition and fielding of new 
capabilities.
      6. Secretary of Defense should formalize a dual acquisition path, 
one rapid and one deliberate.

    I am also in agreement with the establishment of a fund for rapid 
acquisition and fielding. I believe that the determination of an 
appropriate funding level and characterization of this fund should be 
more fully studied. I disagree with the report's recommendation for 
establishment of a new agency--The Rapid Acquisition and Fielding 
Agency (RAFA). If the focuses of RAFA are on speed, utilizing existing 
technologies, and acquisition of a ``75 percent solution'', then 
without creating another organizational layer, the existing Service and 
joint processes should be improved and more fully leveraged.

              service-specific rapid acquisition authority
    11. Senator McCain. Admiral Mullen, over the last few months, there 
has been an increase by the Services and certain commands in using 
their Service-specific rapid acquisition authorities to field urgent 
capability in the Afghanistan theater. It is not surprising that there 
has been an increase in the use of those authorities--particularly with 
regard to close air support and intelligence-surveillance-
reconnaissance capabilities. I have concerns, however, about the 
possibility that those Services and commands might not be going about 
the right way--that they may be using those authorities to develop and 
buy new, complex weapon systems for which the broader Defense 
Acquisition System (the ``milestone system'') is better suited.
    Our objective here is first and foremost that our servicemembers in 
theater have the weapons they need when they need it. But (however 
well-intended), attempts to acquire weapons systems with high 
technology or development risk or with substantial training or 
sustainment requirements in a way that frustrates the Department from 
fielding them as intended, does not serve our servicemembers. I am 
concerned that attempts by those Services and commands to use processes 
that were intended to satisfy discrete ``unit-level'' requirements to 
acquire larger, more complex weapons systems that should probably be 
pursued as larger programs-of-record, will just not work. That has 
repercussions on our servicemembers in theater.
    Do you and your vice chairman (who chairs the JROC) share this 
concern? If so, how do you intend to address how the Services or 
commands use Service-specific rapid acquisition authorities to develop, 
buy, and field weapons systems that should probably be vetted (from a 
requirements perspective), developed, and procured under the broader 
defense acquisition systems?
    Admiral Mullen. We understand the concern and have worked to ensure 
that the needs of the Warfighter are met through the appropriate 
process, rapid or deliberate. While there is some risk inherent in 
having an alternate path for acquiring solutions, the Services and 
combatant commanders have done a credible job of ensuring that the 
needs requested through the rapid process meet the ``urgent and 
compelling'' standard intended by Congress. As the urgent need is being 
met, the sponsors have reviewed capabilities and, as appropriate, 
transitioned them to Programs of Record as additional development is 
dictated. This is an ongoing process. Recent examples include 
development of follow-on Counter Radio-controlled IED Electronic 
Warfare and Biometrics capabilities. Though solutions in both areas 
were initially developed through the JUONs process, continuing 
development is following a more deliberate path through JCIDS, all 
while still providing needed solutions for the current fight.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                       quadrennial defense review
    12. Senator Wicker. Admiral Mullen, in your prepared testimony you 
address end strength questions regarding all four Services, and you 
also address acquisition reform and management. Do you expect the 
ongoing QDR to provide specific guidance or identify specific 
requirements for force structure within the Services?
    Admiral Mullen. The QDR will address emerging security challenges 
and explore ways to improve the balance of efforts and resources to 
achieve our near-term objectives, prepare for future contingencies, and 
institutionalize counterinsurgency and security force assistance 
capabilities. A key product of the QDR will be the Force Planning 
Construct, a framework used by the Department to plan for prevailing in 
current conflicts while defending the homeland, building partner 
capacity, deterring potential adversaries and if necessary, conducting 
large scale operations. This planning construct will provide a 
framework for identifying critical capabilities and capacity shortfalls 
and inform military Departments and Combatant Commands' resource 
planning processes for fiscal year 2012 and beyond. Early QDR insights 
were captured in an update to the Guidance for the Development of the 
Force, signed by the Secretary of Defense in July 2009 and incorporated 
into Service 2011 budget submissions. The final QDR report is expected 
to provide Services enough specificity and strategic focus to develop 
their program recommendations.

    13. Senator Wicker. Admiral Mullen, do you expect the QDR to 
address the Navy's stated requirement for 313 ships?
    Admiral Mullen. Not in direct terms. The QDR is not complete, and 
is planned for a February 2010 submission, but as a broad, overarching 
review, the QDR will provide guidance to each of the Services by means 
of a strategic framework for developing annual programs that address 
today's conflicts and tomorrow's threats. The Services, in turn, will 
develop program recommendations for specific capabilities and 
capacities necessary to meet these future challenges.

    14. Senator Wicker. Admiral Mullen, through the QDR process, DOD 
works to identify the projected threats to national security and the 
resources needed to defend against them. Will the QDR address the 
threats DOD identified but chose not to resource due to fiscal or other 
constraints, and if so, will it disclose in what areas we are assuming 
risk?
    Admiral Mullen. The QDR is not complete, and is planned for a 
February 2010 submission, but it will develop the framework to meet 
projected future threats and force requirements within a resource-
informed context. This framework will influence Service programs that 
will be reviewed within a resource-constrained environment. Risk will 
be assessed in a joint context and informed by those resource 
constraints. I will comment on risk in the mandated Chairman's QDR 
Assessment.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                              afghanistan
    15. Senator Vitter. Admiral Mullen, you recently expressed concerns 
about the ``serious and deteriorating'' situation in Afghanistan. 
General Stanley McChrystal recently submitted a new assessment of the 
situation there that emphasizes a change in strategy, and he is soon 
expected to request thousands of additional troops. What is your 
current understanding of the goals of our efforts in Afghanistan?
    Admiral Mullen. The principle goal of our efforts in Afghanistan 
and Pakistan was outlined by the President in his 27 March policy 
speech. The President gave us a clear mission: disrupt, dismantle, and 
defeat al Qaeda and its extremist allies and prevent Afghanistan from 
becoming a safe haven again.
    General McChrystal concluded in his recent assessment, and I 
concur, that we need to change our operational approach in order to be 
successful. We must become more population-centric in our approach and 
less enemy-centric. The goals of General McChrystal's new approach are 
to change the operational culture of the International Security 
Assistance Force (ISAF) to focus on protecting the people, 
understanding their environment, and building relationships with them, 
and transforming ISAF processes to be more operationally efficient and 
effective, creating more coherent unity of command within ISAF, and 
fostering stronger unity of effort across the international community. 
Ultimately, the objective is to defeat the Taliban insurgency and 
reduce the threat of al Qaeda (AQ) being able to use the region to plan 
further attacks on the United States.
    The enemy in Afghanistan is not the insurgent; the enemy is fear. 
If we can remove the fear under which so many Afghans live, if we can 
supplant it with security and good governance, then we can provide the 
people of Afghanistan an alternative to Taliban rule. If they have an 
alternative to Taliban rule, they will choose it. The majority of 
Afghans have indicated that they do not support the Taliban. It is 
through fear and intimidation that the Taliban influence the people and 
garner support for their insurgency. Recognizing that the ideology 
shared by al Qaeda and the Taliban knows no border and that this area 
remains the epicenter of violent Islamic fundamentalism, an Afghanistan 
resistant to extremism and free of such sanctuary, will help bolster 
the efforts of neighboring Pakistan to follow suit. On the other hand, 
if the Taliban succeed in governing at the state level--as they have 
already succeeded in many local areas--al Qaeda could reestablish the 
safe havens they enjoyed in Afghanistan at the end of the last decade 
and the internal threat to Pakistan by extremism will only worsen. Such 
a sanctuary would pose a regional as well as a global threat to 
security.

    16. Senator Vitter. Admiral Mullen, as specifically as possible, 
can you define what a successful completion of the mission in 
Afghanistan will entail?
    Admiral Mullen. I see a successful completion of the mission as a 
stable Afghan Government which is capable of providing security and 
basic services to its citizens.
    Increasing the capacity of Afghan National Security Forces (ANSF) 
to provide security to the Afghan people is a critical component of 
this effort. The ANSF will eventually replace ISAF forces and security 
mission for their country. An ANSF that can manage the insurgency and 
provide sustained security would be one of the indicators that our 
mission in Afghanistan is complete. Another key indicator is a 
Government of the Islamic Republic of Afghanistan (GIRoA) that can 
address the corruption and ineffectiveness of national, district and 
provincial level leadership and governance.
    We also support Afghan counterterrorism measures that target 
specific al Qaeda members and their support networks. As the Afghan 
Government strengthens its ties to its people it will help set 
conditions that are needed to prevent the return of al Qaeda 
extremists.
    All elements of national power-diplomatic, informational, military, 
and economic-must be brought to bear for successful completion of our 
mission. This requires better civil-military coordination and a 
significant change in the management, resources, and focus of our 
foreign assistance. Our approach to defeating al Qaeda must be one that 
builds trust with Afghans and Pakistanis while applying all instruments 
of power. We require these diverse instruments to deny sanctuary to al 
Qaeda and the Taliban and to generate a stable and secure Afghanistan 
which will prevent al Qaeda's return after the withdrawal of coalition 
forces while we sustain partnership and commitment to political and 
economic development in that nation. We can accomplish the mission 
we've been assigned, but we will need resources matched to the 
strategies, civilian expertise matched to military capabilities and the 
continued support of the American people.
    Success requires governance that is acceptable to the Afghan 
people. It is not unreasonable to expect that the GIRoA can eventually 
develop the capacity to address the basic needs of the people.

    17. Senator Vitter. Admiral Mullen, do you intend to support 
General McChrystal's expected request for additional troops?
    Admiral Mullen. I have provided my best military advice to the 
Secretary of Defense and to the President with respect to General 
McChrystal's resource request. However, as the Afghanistan-Pakistan 
strategy discussions are ongoing, and the President has not yet made a 
decision, I do not feel it is appropriate at this time to get in front 
of his decisionmaking process.

    18. Senator Vitter. Admiral Mullen, General McChrystal's assessment 
indicates that U.S. strategy in Afghanistan will shift from primarily 
fighting the Taliban to increasing security for civilians, combating 
corruption in local governments, and increased training of Afghan 
security forces. General McChrystal has also begun to implement new 
strategies geared toward limiting civilian casualties, particularly by 
limiting the use of airstrikes. In what ways does the overall shift in 
strategy reflect a different understanding of our ultimate objectives 
in Afghanistan?
    Admiral Mullen. Doctrinal counterinsurgency strategy recognizes 
that success is not based solely on the insurgents. Success is achieved 
when the population rejects the insurgent and the root causes that 
drive the people to support the insurgent cause. General McChrystal 
notes this in his assessment and that it supports our ultimate 
objective in Afghanistan.
    By focusing on limiting civilian casualties, General McChrystal is 
addressing one of the populations' most significant concerns. Any time 
an innocent person is killed our mission becomes more difficult and our 
men and women in Afghanistan understand this. In addition to the tragic 
loss of life, all of the leadership is aware of the negative 
repercussions that result from civilian casualties. As such, General 
McChrystal's new tactical directive provides guidance to subordinate 
commanders, and the force, on controlled use of munitions and tactical 
techniques to better safeguard the population and reduce civilian 
casualties, which is our moral and legal responsibility pursuant to 
international obligations under the Law of War. There has been no 
change to our rules of engagement in Afghanistan, and there is nothing 
in the tactical directive that precludes a commander's right to protect 
his forces from imminent threats.
    I recognize, as does General McChrystal, that the carefully 
controlled and disciplined employment of force entails some risks to 
our troops--we must work to mitigate that risk wherever possible, but 
excessive use of force resulting in an alienated populace will result 
in increased risk to the accomplishment of our mission. I have every 
confidence in the ability of our forces to operate effectively and to 
succeed in this challenging environment under the current guidelines.
    Ultimately, keeping Afghanistan from serving as a safe haven for al 
Qaeda in the long term will require a legitimate government that has 
the support of the majority of the Afghan people.

    19. Senator Vitter. Admiral Mullen, are you concerned that this 
shift in strategy might limit the ability of our troops to aggressively 
pursue Taliban forces and other combatants in Afghanistan?
    Admiral Mullen. I do not think that General McChrystal's guidance 
precludes our troops from effectively dealing with the enemy. An 
effective counterinsurgency strategy has a kinetic element to it. It 
also has a counterterrorism element to it and, given his background, I 
believe General McChrystal understands this better than most. When our 
troops are in contact they can ask for whatever they need and I fully 
expect them to receive every asset that is available.
    Our new operational focus, as outlined in General McChrystal's 
assessment report, is population-centric. This approach is designed to 
separate the enemy from the population, and recognizes that the good 
will of the Afghan people is a strategic center of gravity. In carrying 
out this new approach, our forces will continue to aggressively pursue 
enemy forces. Aggressive pursuit is not always kinetic in nature. 
Developing better relationships with our Afghan partners, engaging key 
leaders, and ensuring good governance are all important means of 
pursuing and defeating the enemy.

    20. Senator Vitter. Admiral Mullen, are you optimistic about 
efforts to build civic infrastructure and pursue long-term economic 
development in Afghanistan, given that nation's long history of 
political instability and turmoil?
    Admiral Mullen. I am realistic and understand the troubled history 
of Afghanistan. We need to be patient, and adjust our expectations to 
the long-term instead of thinking we can make substantive changes in 
the short-term. It takes time to rebuild government institutions and 
commerce in a country that has endured what Afghanistan has over the 
last 30 years. If the Government of the Islamic Republic of Afghanistan 
can adequately address the insurgency and our strategy is properly 
resourced then I believe the country can make progress. This begins by 
providing the population with enduring security so that the Afghan 
people can improve their everyday lives. Improvements in security, 
coupled with economic development at the local level, set the 
conditions necessary to enable Afghans to reject the Taliban as a 
source of legitimate authority.
    Afghanistan has a weak central government with whom we are working 
to help build legitimacy, competence and capacity. We must focus our 
efforts now on key ministries in Kabul such as Defense, Interior, 
Intelligence, Finance, and Agriculture to ensure we build capacity in 
the institutions that are most critical for current and long-term 
stability. In addition to strengthening these ministries we must 
increase capacity at the provincial, district, and sub-district levels 
where governments suffer from the same ills as the central government. 
The Afghan Government--at all levels--must be able to provide basic 
services if it is to gain the confidence and support of the Afghan 
people.
    I agree with General McChrystal that the President's regional 
civil-military strategy gives us the best opportunity for stabilizing 
Afghanistan, building governance capacity, developing civic 
infrastructure, and providing for that country's long-term economic 
development.

    21. Senator Vitter. Admiral Mullen, considering Afghanistan's role 
as a leading exporter of narcotics, can we realistically pursue viable 
agricultural alternatives and increased law enforcement as a means of 
reducing the impact of the drug trade on Afghanistan's instability?
    Admiral Mullen. There is no one simple way of attacking the 
narcotics problem in Afghanistan. This is a complex problem that must 
be dealt with holistically. We recognize the narco-terror nexus, and as 
such, we are developing a whole of government approach. Our counter-
narcotics plan is being developed with interagency coordination. The 
plan focuses on breaking the nexus between drug traffickers and the 
insurgents, reducing drug production and processing, interdiction, and 
providing realistic economic alternatives for farmers currently engaged 
in poppy cultivation.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                        equipment in afghanistan
    22. Senator Collins. Admiral Mullen, while at Camp Leatherneck I 
was fortunate enough to have lunch with some marines from Maine who 
told me that when they arrived in Afghanistan in May, they did not have 
all of the equipment they needed for some time. This was very troubling 
news. What is being done to ensure that our troops are fully equipped 
when they are deployed?
    Admiral Mullen. Ensuring that servicemembers are deployed with 
their required combat equipment remains a critical Service and 
combatant commander priority. Properly equipping forces involves 
coordinating equipment and personnel arrival across strategic and 
operational logistics infrastructure.
    In order to properly equip deploying units and meet the established 
arrival date, the Services, U.S. Transportation Command (TRANSCOM), and 
CENTCOM continue to coordinate the arrival of personnel and equipment 
in Afghanistan. In the case of the Marines, challenges associated with 
the deployment were based on conscious decisions by the Marine Corps to 
globally source equipment and personnel, bypassing normal deployment 
procedures in order to rapidly develop the largest initial combat 
capability possible.
    Since the Marines' deployment to RC-South, strategic logistics 
infrastructure and performance improvements have been made in both the 
Central Asian States and Pakistan. Since the initial deployment of the 
Marines, CENTCOM, European Command, and TRANSCOM matured the Northern 
Distribution Network that includes both air and ground lines-of-
communication through the Caucuses, Russia, and the Central Asian 
States. Furthermore, the capability of Pakistan ground line-of-
communications have expanded and become more dependable.
    Operational logistics infrastructure in Afghanistan has also 
improved significantly since the initial Marine deployments into RC-
South. There are a total of eight airfields in RC-South that have been 
or are being improved in order to increase logistics support to the 
forces deployed including airfield expansions at Forward Operating Base 
Dwyer and Camp Bastion (Leatherneck). Enhancements of route security 
and expansion of the road network continues into RC-South. Future 
expansion of logistics infrastructure include the expansion of Shindand 
and Herat Airfields in RC-West and the continued enhancement of 
security and expansion of the road network in RC-South and RC-West.
                                 ______
                                 
    [The nomination reference of ADM Michael G. Mullen, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chairman of the 
Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 152 and 601:

                             To be Admiral

    ADM Michael G. Mullen, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Michael G. Mullen, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
     Transcript of Naval Service for ADM Michael Glenn Mullen, USN

04 Oct. 1946..............................  Born in Los Angeles, CA
05 June 1968..............................  Ensign
05 June 1969..............................  Lieutenant (junior grade)
01 July 1971..............................  Lieutenant
01 Oct. 1977..............................  Lieutenant Commander
01 June 1983..............................  Commander
01 Sep. 1989..............................  Captain
01 Apr. 1996..............................  Rear Admiral (lower half)
05 Mar. 1998..............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Oct. 1998..............................  Rear Admiral
21 Sep. 2000..............................  Designated Vice Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Nov. 2000..............................  Vice Admiral
28 Aug. 2003..............................  Admiral, Service continuous
                                             to date
 

Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Fleet Training Center, San Diego, CA (DUINS)....   June 1968   Aug. 1968
Fleet Anti-Submarine Warfare School, San Diego,    Aug. 1968   Sep. 1968
 CA (DUINS).....................................
USS Collett (DD 730) (ASW Officer)..............   Sep. 1968   June 1970
Naval Destroyer School, Newport, RI (DUINS).....   June 1970   Feb. 1971
Nuclear Weapons Training Group, Atlantic,          Feb. 1971   Feb. 1971
 Norfolk, VA (DUINS)............................
USS Blandy (DD 943) (Weapons/Operations Officer)   Feb. 1971   Nov. 1972
Fleet Training Center, Norfolk, VA (DUINS)......   Nov. 1972   Jan. 1973
Staff, Commander Service Force, U.S. Atlantic      Jan. 1973   Jan. 1973
 Fleet (DUINS)..................................
CO, USS Noxubee (AOG 56)........................   Jan. 1973   July 1975
U.S. Naval Academy, Annapolis, MD (Company         July 1975    May 1978
 Officer/Executive Assistant to Commandant).....
Ship Material Readiness Group, Idaho Falls, ID      May 1978   Oct. 1978
 (DUINS)........................................
U.S.S. Fox (CG 33) (Engineering Officer)........   Oct. 1978   Apr. 1981
Surface Warfare Officers School Command,           Apr. 1981   July 1981
 Newport, RI (DUINS)............................
XO, USS Sterett (CG 31).........................   July 1981   Jan. 1983
Naval Postgraduate School, Monterey, CA (DUINS).   Jan. 1983   Mar. 1985
Surface Warfare Officers School Command,           Apr. 1985    May 1985
 Newport, RI (DUINS)............................
CO, USS Goldsborough (DDG 20)...................   June 1985   Oct. 1987
Naval War College, Newport, RI (DUINS)..........   Oct. 1987   Dec. 1987
Surface Warfare Officers School Command,           Dec. 1987   Sep. 1989
 Newport, RI (Director Surface Warfare Division
 Officer Course)................................
Office of the Secretary of Defense, Washington,    Sep. 1989   Aug. 1991
 DC (Military Staff Assistant to Director,
 Operational Test and Evaluation)...............
Harvard University Advanced Management Program..   Aug. 1991   Nov. 1991
Surface Warfare Officers School Command,           Nov. 1991   Nov. 1991
 Newport, RI (DUINS)............................
Tactical Training Group Atlantic (DUINS)........   Nov. 1991   Dec. 1991
COMNAVSURFLANT (DUINS)..........................   Dec. 1991   Jan. 1992
AEGIS Training Center, Dahlgren, VA (DUINS).....   Feb. 1992   Apr. 1992
CO, U.S.S. Yorktown (CG 48).....................   Apr. 1992   Jan. 1994
Bureau of Naval Personnel (Director, Surface       Feb. 1994   Aug. 1995
 Officer Distribution Division) (PERS-41).......
Office of CNO (Director, Surface Warfare Plans/    Aug. 1995    May 1996
 Programs/Requirements Division, N863)..........
Office of CNO (Deputy Director, Surface Warfare     May 1996   July 1996
 Division, N86B)................................
Tactical Training Group Atlantic (DUINS)........   July 1996   Aug. 1996
Commander, Cruiser Destroyer Group TWO..........   Aug. 1996    May 1998
Office of CNO (Director, Surface Warfare            May 1998   Oct. 2000
 Division) (N86)................................
Commander, Second Fleet/Commander, Striking        Oct. 2000   Aug. 2001
 Fleet Atlantic.................................
Office of CNO (Deputy Chief of Naval Operations    Aug. 2001   Aug. 2003
 for Resources, Requirements, and Assessments)
 (N8)...........................................
Vice Chief of Naval Operations..................   Aug. 2003   Oct. 2004
Commander, U.S. Naval Forces, Europe/Commander,    Oct. 2004    May 2005
 Joint Forces, Naples...........................
Prospective Chief of Naval Operations...........    May 2005   July 2005
Chief of Naval Operations.......................   July 2005   Sep. 2007
Chairman of the Joint Chiefs of Staff...........   Oct. 2007     To date
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal
    Distinguished Service Medal with one Gold Star
    Defense Superior Service Medal
    Legion of Merit with one Silver Star
    Meritorious Service Medal
    Navy and Marine Corps Commendation Medal
    Navy and Marine Corps Achievement Medal
    Navy Unit Commendation
    Meritorious Unit Commendation
    Navy ``E'' Ribbon with Wreath
    Navy Expeditionary Medal
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal
    Vietnam Service Medal with one Bronze Star
    Global War on Terrorism Service Medal
    Humanitarian Service Medal with one Bronze Star
    Sea Service Deployment Ribbon with three Bronze Stars
    Navy and Marine Corps Overseas Service Ribbon with one Bronze Star
    Republic of Vietnam Gallantry Cross Unit Citation with Bronze Palm
    Republic of Vietnam Civil Actions Unit Citation with Bronze Palm
    NATO Medal

Foreign awards:
    Italian Defense General Staff Joint Forces Medal of Honor

Special qualifications:
    BS (Naval Science) U.S. Naval Academy, 1968
    MS (Operations Research) Naval Postgraduate School, 1985
    Surface Warfare Officer Qualification, 1968
    Language Qualifications: Italian (Knowledge)
    Capstone, 1995-4

Personal data:
    Wife: Deborah Morgan of Sherman Oaks, CA
    Children: John Stewart Mullen (Son), Born: 30 April 1979; and 
Michael Edward Mullen (Son), Born: 29 December 1980.

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                          Dates            Rank
------------------------------------------------------------------------
Office of the Secretary of Defense,     Sep. 1989-Aug. 1991.....    CAPT
 Washington, DC (Military Staff
 Assistant for U.S. Navy Programs to
 the Director, Operational Test and
 Evaluation).
Commander, Second Fleet/Commander,      Oct. 2000-Aug. 2001.....    VADM
 Striking Fleet Atlantic.
Commander, U.S. Naval Forces, Europe/   Oct. 2004-May 2005......     ADM
 Commander, Joint Forces, Naples.
Chairman of the Joint Chiefs of Staff.  Oct. 2007-To date.......     ADM
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Michael G. 
Mullen, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael G. Mullen.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    May 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 4, 1946; Hollywood, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Deborah Morgan Mullen.

    7. Names and ages of children:
    LT John Stewart Mullen, USN, 30 years old.
    LT Michael Edward Mullen, USN, 28 years old.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Advisory Council to the Board of Governors of the American National 
Red Cross.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    National Order of the Legion of Honor (France) awarded on May 12, 
2007.
    Grand Officer of the Order of the Italian Republic (Italy) awarded 
on April 14, 2007.
    Honorary Doctor of Science from Grove City College.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael G. Mullen.
    This 1st day of May, 2009.

    [The nomination of ADM Michael G. Mullen, USN, was reported 
to the Senate by Chairman Levin on September 24, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 25, 2009.]


 
 NOMINATIONS OF CHRISTINE H. FOX TO BE DIRECTOR OF COST ASSESSMENT AND 
  PROGRAM EVALUATION, DEPARTMENT OF DEFENSE; FRANK KENDALL III TO BE 
   DEPUTY UNDER SECRETARY OF DEFENSE FOR ACQUISITION AND TECHNOLOGY; 
  GLADYS COMMONS TO BE ASSISTANT SECRETARY OF THE NAVY FOR FINANCIAL 
   MANAGEMENT AND COMPTROLLER; AND TERRY A. YONKERS TO BE ASSISTANT 
      SECRETARY OF THE AIR FORCE FOR INSTALLATIONS AND ENVIRONMENT

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Udall, 
Hagan, Burris, McCain, Inhofe, Sessions, Chambliss, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Terence K. Laughlin, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Jason W. Maroney, counsel; Roy F. 
Phillips, professional staff member; Russell L. Shaffer, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Pablo E. Carrillo, minority investigative 
counsel; Lucian L. Niemeyer, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Paul J. Hubbard and Jennifer R. 
Knowles.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Patrick Hayes, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Roger Pena, 
assistant to Senator Hagan; Lindsay Kavanaugh, assistant to 
Senator Begich; Roosevelt Barfield, assistant to Senator 
Burris; Anthony J. Lazarski and Jared Young, assistants to 
Senator Inhofe; and Lenwood Landrum, assistant to Senator 
Sessions.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of: Christine Fox, to 
be Director of Cost Assessment and Program Evaluation (CAPE); 
Frank Kendall III to be Deputy Under Secretary of Defense for 
Acquisition and Technology; Gladys Commons to be Assistant 
Secretary of the Navy for Financial Management and Comptroller; 
and Terry Yonkers to be Assistant Secretary of the Air Force 
for Installations and Environment.
    We welcome our nominees and their families to today's 
hearing. Senior Department of Defense (DOD) officials put in 
long and often uncertain hours. We appreciate the sacrifices 
that our families are willing to make to serve our country. 
Their families deserve equal gratitude for the support that 
they provide that is so essential to the success of these 
officials.
    Each of our nominees has a distinguished background. Ms. 
Fox is the President of the Center for Naval Analyses (CNA), 
the Navy's Federally-Funded Research and Development Center, 
where she has worked as a defense analyst for the last 28 
years.
    Mr. Kendall has served as DOD's Director of Tactical 
Warfare Programs and as Assistant Deputy Under Secretary of 
Defense for Defense Systems, before returning to the private 
sector, where he consults on strategic planning, engineering 
management, and technology assessment issues.
    Ms. Commons has served DOD as a budget analyst and 
comptroller for more than 30 years, most recently as 
Comptroller of the Military Sealift Command, Principal Deputy 
Assistant Secretary of the Navy for Financial Management, and 
Comptroller of the Marine Corps Research, Development, and 
Acquisition Command.
    Mr. Yonkers worked for the Air Force for 22 years, serving 
as Deputy Assistant Secretary for Environment, Safety, and 
Occupational Health, and as Director of Environmental Programs 
for the Air Force Base Conversion, before returning to the 
private sector to advise clients on engineering, energy, and 
environmental programs beginning in 2002.
    If confirmed, each of our nominees will play a critical 
role in the management of DOD and the Military Services. The 
Director of CAPE is a new position that we established in the 
Weapons Systems Acquisition Reform Act that we enacted earlier 
this year. We established the position of CAPE Director to 
ensure that the budget assumptions underlying acquisition 
programs are sound and that the Department faces up to the real 
costs of unrealistic requirements. We and the public have had 
our fill of cost overruns caused by overly optimistic 
assumptions at the beginning of programs.
    To be successful in this position, the new director will 
have to be an independent truth-teller in the mold of the 
Director of the Congressional Budget Office and DOD's Director 
of Operational Test and Evaluation.
    The Deputy Under Secretary of Defense for Acquisition and 
Technology is the number two official in the office responsible 
for managing an acquisition system that spends about $400 
billion a year and too often falls short of what is needed.
    The Assistant Secretary of the Navy for Financial 
Management and Comptroller is responsible for managing the 
Navy's budget and for placing the Department on the road to an 
auditable financial statement.
    The Assistant Secretary of the Air Force for Installations 
and Environment is responsible for managing Air Force bases and 
test ranges and for addressing such difficult issues as energy 
conservation and environmental encroachment.
    These are all formidable tasks that play an essential role 
in the successful operation of DOD.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I join you in welcoming our nominees and their families, 
and I thank them for their willingness to serve in these key 
leadership positions. Mr. Kendall, the nominee to be the Deputy 
Under Secretary of Defense for Acquisition and Technology, has 
broad experience as an Active Duty Army officer, as an 
acquisition official in the Office of the Under Secretary of 
Defense for Acquisition, and in the private sector. Ms. Fox, 
the first nominee for the position of Director of CAPE, is 
currently the President of the CNA. She has worked for over 25 
years as a defense programs evaluator and research manager with 
a focus on operations, cost, and acquisition, manpower, 
readiness and technology issues and programs.
    If Mr. Kendall and Ms. Fox are confirmed--and I am 
confident that they will be--they will each play a vital role 
in implementing the provisions of the Weapons Systems 
Acquisition Reform Act of 2009. This legislation places 
singular emphasis on improving the chances for success by 
obtaining reliable independent cost estimates and assessments 
of technological maturity early, before the Department makes 
decisions committing billions of taxpayers' dollars to buying 
new weapons systems. The Act, which became law in May of this 
year, also gives the Department various tools and enhanced 
capabilities in the areas of systems engineering and 
developmental testing.
    I'll be interested in hearing your evaluation of the 
methods available to you to successfully fulfill your 
responsibilities and address the problem of out of control cost 
growth in our largest, most expensive weapons systems.
    Mr. Yonkers, the nominee to be the Assistant Secretary of 
the Air Force for Installations, Environment, and Logistics, 
has over 20 years of civilian service in the Air Force in 
positions relating to environmental engineering and compliance 
and closure.
    The Air Force, like all the Services, is facing enormous 
challenges in balancing its requirements for operational 
readiness and wartime support with the objectives of military 
construction, infrastructure management, environmental 
compliance, and enhanced quality of life for its personnel. We 
appreciate the experience and energy you will bring to this 
position.
    Similarly, Ms. Commons, the nominee to be the Navy 
Comptroller, has extensive experience in financial management 
in the Department of the Navy, including service as a Principal 
Deputy Assistant Secretary of the Navy for Financial Management 
and Comptroller for over 6 months, serving as the Acting 
Assistant Secretary. I thank you for coming out of retirement 
to serve our sailors and marines once again.
    I look forward to the testimony of the nominees today. I 
again thank them and their families who are here today for 
their service to the Nation.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    I am going to now call on Senator Reed for an introduction.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM THE STATE OF 
                          RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman.
    I'm very pleased to introduce Frank Kendall. Frank and I 
have been classmates. We've known each other, I've calculated, 
about 42 years. Frank has served as an air artillery officer in 
the U.S. Army. He's commanded a battery, and I think that gives 
him a good starting point, because essentially all he does 
ultimately affects the young soldiers, sailors, airmen, and 
marines that serve us so well. Having led some of those young 
people years ago, that gives you a good perspective.
    But as others have pointed out, he has had a distinguished 
career in civilian defense operations, as well as serving in 
DOD as a civilian. I can't think of anyone who has the 
experience and the capabilities to do this job. Welcome, Frank.
    Mr. Kendall. Thank you, Senator Reed.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Burris has asked that his statement be made a part 
of the record and we'll insert that here.
    [The prepared statement of Senator Burris follows:]
             Prepared Statement by Senator Roland W. Burris
    Thank you, Mr. Chairman, and welcome nominees.
    I am again pleased with the nominations that President Obama has 
chosen to run these essential positions with our Government. The 
President and I agree that the candidates before us today show the 
dedicated leadership that is so integral to serving the American 
people. The Nation is looking to you nominees to play a major role in 
redirecting our efforts to benefit and protect all of our citizens--
including servicemembers and taxpayers alike.
    Now, I would like to take a moment to commend the President on his 
selection of these nominees and I look forward to these nominations 
moving quickly as we work on the ambitious agenda we have all 
undertaken. There is an opportunity for our partnership to foster real 
change and I look forward to our mutual cooperation for the benefit of 
this great Nation.
    Thank you, Mr. Chairman.

    Chairman Levin. There are also two letters of introduction 
which we'll make part of the record: a letter from Senator 
Warner relative to Ms. Fox and a letter from Senator Mikulski 
relative to Mr. Yonkers.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. I will now call on our nominees. First 
we'll call on Ms. Fox, and as each of you give us your opening 
comments feel free, if you wish, to introduce your family or 
anybody who is here with you. Ms. Fox.

 STATEMENT OF CHRISTINE H. FOX, NOMINEE TO BE DIRECTOR OF COST 
    ASSESSMENT AND PROGRAM EVALUATION, DEPARTMENT OF DEFENSE

    Ms. Fox. Thank you, Senator. Chairman Levin, Ranking Member 
McCain, and distinguished members of the Senate Armed Services 
Committee. Thank you for the opportunity to appear before you 
today. I am grateful that President Obama had the confidence in 
me to nominate me for the position of Director, CAPE. I also 
want to thank Secretary Gates for his support of my nomination. 
If confirmed, I would be very honored to serve in this 
position.
    Even though he could not be here today, I would like to 
thank Senator Warner for providing his very kind introductory 
remarks for the record. Senator Warner's personal endorsement 
means a great deal to me.
    My husband, Dr. Alan Brown, is here with me today. I want 
to introduce him to you and give him my special thanks. He has 
always given me strong support and encouragement, and without 
that support I would not be here today.
    As you have made clear in the Weapon Systems Acquisition 
Reform Act of 2009, you believe that high-quality, independent 
analysis should play an important role in ensuring that weapons 
systems are procured in an effective and efficient way. If 
confirmed, I would work to ensure that high-quality analyses 
are produced and available to inform the important decisions in 
the acquisition process. I have served as a defense analyst for 
a number of years, and if confirmed, I would draw from those 
years of experience to help achieve the goals of your 
legislation and to assist the Secretary of Defense.
    Thank you again for the opportunity to appear before you 
today. I will do my best to respond to your questions.
    Chairman Levin. Thank you very much, Ms. Fox.
    Mr. Kendall.

  STATEMENT OF FRANK KENDALL III, NOMINEE TO BE DEPUTY UNDER 
      SECRETARY OF DEFENSE FOR ACQUISITION AND TECHNOLOGY

    Mr. Kendall. Thank you, Mr. Chairman. Chairman Levin, 
Ranking Member McCain, and distinguished members of the Senate 
Armed Services Committee. Thank you for the opportunity to 
appear before your committee today. I am grateful for the 
confidence that President Obama has shown in me by nominating 
me to be the Deputy Under Secretary of Defense for Acquisition 
and Technology. I want to thank Secretary Gates, Deputy 
Secretary Lynn, and Under Secretary Carter for their support 
for my nomination. If confirmed, I will be deeply honored to 
serve.
    I'd also like to thank my classmate from West Point, 
Senator Reed, for his support and his very kind introduction 
today.
    Finally, I would like to thank my family for their support. 
Elizabeth Halpern, my wife, is with me today and I want to 
introduce her to you and offer her my special thanks and 
appreciation. My two sons are also here and I want to thank 
Scott and Eric Kendall for all their support and patience, 
particularly during my earlier time in the Pentagon from 1986 
to 1994.
    Eric is a member of the National Guard and an Iraq war 
veteran. If I am fortunate enough to be confirmed, he and his 
fellow soldiers, sailors, airmen, and marines will be foremost 
in my thoughts as I confront the Department's acquisition 
problems.
    I am keenly aware of the high priority that this committee, 
Congress, the President, and the Secretary of Defense have 
placed on improving the results achieved by the defense 
acquisition system. The United States of America has the most 
well equipped military in the world, but I believe that we can 
do much better at equipping and sustaining our forces. I 
believe that my background in operational units, in defense 
research and development organizations, in the Office of the 
Secretary of Defense (OSD), and the defense industry have all 
prepared me to make a contribution to achieving this goal.
    But I have no illusions about the magnitude of the 
challenge that the Department faces. If the Senate confirms me 
in this position, I will make every effort to live up to the 
confidence that will have been placed in me.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Mr. Kendall.
    Ms. Commons.

STATEMENT OF GLADYS COMMONS, NOMINEE TO BE ASSISTANT SECRETARY 
      OF THE NAVY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Ms. Commons. Mr. Chairman, distinguished members of the 
committee: It is an honor and privilege to appear before you 
today as President Obama's nominee for Assistant Secretary of 
the Navy for Financial Management and Comptroller. Thank you 
for the opportunity to be here today. I also want to thank 
Secretary Ray Mabus for his confidence in me. If confirmed, I 
will be honored to serve as the Assistant Secretary of the 
Navy, Financial Management and Comptroller.
    I want to thank my family for their support. My husband of 
almost 40 years, Bill, is here today. My sons Billy and James 
and my daughter-in-law Nicole are also here. My daughter 
Krystal, a first year law student at Columbia University, could 
not be here today, but I want to thank her for being an 
important part of my life.
    The duties and responsibilities of the Assistant Secretary 
of the Navy for Financial Management and Comptroller are 
significant. I have served in various financial management 
positions within the Department of the Navy, including almost 8 
years as Principal Deputy Assistant Secretary. I have and will 
take seriously the public trust and stewardship of the 
resources committed to the Department.
    If confirmed, I will work within the Department and with 
the Under Secretary of Defense-Comptroller to obtain the 
resources our sailors, marines, and civilians need to meet the 
national security requirements placed upon them by this Nation.
    I understand the need to develop budgets that are balanced 
and supported by accurate, timely, and reliable data. I will 
support the goals and initiatives Secretary Mabus has 
established for the Department.
    In closing, I am honored to have been nominated for this 
position. If confirmed, I will do my best to perform the 
responsibilities of this position.
    Thank you.
    Chairman Levin. Thank you very much, Ms. Commons.
    Mr. Yonkers.

    STATEMENT OF TERRY A. YONKERS, NOMINEE TO BE ASSISTANT 
  SECRETARY OF THE AIR FORCE FOR INSTALLATIONS AND ENVIRONMENT

    Mr. Yonkers. Thank you, Mr. Chairman, Ranking Member 
McCain, and distinguished members of the Senate Armed Services 
Committee. It's a tremendous honor for me to be here today and 
be the nominee for the position of the Assistant Secretary of 
the Air Force for Installations and Environment. I want to 
thank President Obama, Secretaries Gates and Donley, for their 
trust and confidence in me to carry out the very important 
roles and responsibilities of this position.
    I would like to thank Senator Mikulski for her very kind 
remarks and introductions.
    Finally, I want to thank my wife and my family for their 
undying support and understanding. If I may, Mr. Chairman, I 
brought a gaggle this morning, so I would like to introduce: my 
wife of almost 40 years, Mari; my daughter Tammy; my son-in-law 
John Lightle; and my granddaughters Mearah and Auri, who bring 
real meaning and balance to my life. My son Timmothy serves 
with the Department of Homeland Security down at Jacksonville, 
FL, and was unable to be here today.
    I'm deeply humbled and honored by this nomination. In my 
mind there is no greater calling than public service. The 22 
years I spent in the service of the Air Force were the most 
gratifying and fulfilling time of my professional life.
    The installation and environment challenges the Air Force 
faces today are many and diverse. Things such as energy 
security, environmental security, climate change, quality of 
life and safety of our service men and women are of paramount 
importance.
    If confirmed, I look forward to working with Secretary 
Donley, General Schwartz, the entire OSD and Air Force team to 
meet these challenges and do everything I can to make sure all 
the members of the Air Force, total force, enjoy quality 
facilities and a decent quality of life.
    As I thought about reentering public service, my friends 
and family asked me: Why do you want to do this, especially 
having been in the Pentagon during the events of September 11, 
2001. For me, sir, it's very clear: because I want to serve and 
I want to try and make a difference.
    I thank you, Mr. Chairman, for the opportunity to address 
the committee and will attempt to answer any of the questions 
that you have for me.
    Chairman Levin. Thank you all very much.
    There's now a set of standard questions which we ask of all 
nominees, and I would ask you to answer together. Have you 
adhered to applicable laws and regulations governing conflicts 
of interest?
    Ms. Fox. Yes.
    Mr. Kendall. Yes.
    Ms. Commons. Yes.
    Mr. Yonkers. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Ms. Fox. No.
    Mr. Kendall. No.
    Ms. Commons. No.
    Mr. Yonkers. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Ms. Fox. Yes.
    Mr. Kendall. Yes.
    Ms. Commons. Yes.
    Mr. Yonkers. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to Congressional requests?
    Ms. Fox. Yes.
    Mr. Kendall. Yes.
    Ms. Commons. Yes.
    Mr. Yonkers. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Ms. Fox. Yes.
    Mr. Kendall. Yes.
    Ms. Commons. Yes.
    Mr. Yonkers. Yes, sir.
    Chairman Levin. Do you agree if confirmed to appear and 
testify upon request before this committee?
    Ms. Fox. Yes.
    Mr. Kendall. Yes.
    Ms. Commons. Yes.
    Mr. Yonkers. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Ms. Fox. Yes.
    Mr. Kendall. Yes.
    Ms. Commons. Yes.
    Mr. Yonkers. Yes.
    Chairman Levin. Let's try a 7-minute first round for 
questions.
    Ms. Fox, I think you would agree and have already said that 
DOD's systematic use of overly optimistic cost and schedule 
estimates has been one of the causes of the poor performance of 
major defense acquisition programs. My question is this, if 
confirmed, will you be tough, independent, and ready to tell 
senior DOD officials how much programs are really going to 
cost, regardless of how unpopular your advice may be.
    Ms. Fox. Yes, Mr. Chairman, I will.
    Chairman Levin. The Weapons Systems Acquisition Reform Act 
places great emphasis on making early tradeoffs between costs, 
schedule, and performance so that we do not lock in what 
Secretary Gates has called ``exquisite requirements'' early in 
the process and then pursue them without regard to cost 
implications.
    One of the ways that we sought to address this issue was by 
requiring the new CAPE Director to participate in the 
requirements-setting process of the Joint Requirements 
Oversight Council (JROC) for the purpose of ensuring that JROC 
is aware of the cost implications of the choices that it makes. 
Are you familiar with that requirement, Ms. Fox?
    Ms. Fox. Yes, sir, I am.
    Chairman Levin. Will you ensure that JROC is aware of the 
cost consequences of the requirements choices, so that we can 
establish programs that are realistic both in terms of 
technology and cost?
    Ms. Fox. Yes, Mr. Chairman, I will.
    Chairman Levin. The Government Accountability Office (GAO) 
has estimated that operating and support costs account for 60 
to 70 percent of the total life cycle cost of a weapons system, 
far more than the initial acquisition cost. Although the 
Department spends hundreds of billions of dollars on operating 
and support costs, it still lacks effective systems for 
estimating, tracking, and controlling such costs.
    Ms. Fox, what steps would you take if confirmed to address 
that problem?
    Ms. Fox. Mr. Chairman, I am aware that operating and 
support costs account for a major part of the life-cycle costs 
and, if confirmed, I would conduct an assessment of the 
analytic tools that are available today to estimate operating 
and support costs. I also would work with the CAPE organization 
and the Services to develop better ways to analyze and 
illuminate the costs associated with operations and support.
    Chairman Levin. Now, the Quadrennial Defense Review (QDR) 
will define the Department's force modernization plans. It's 
scheduled to be completed early next year. The QDR is also 
expected to reach a balance between the Department's needs for 
current and future capabilities and between conventional 
operations and irregular, unconventional, and stability type 
operations.
    Ms. Fox, what role do you expect to play, if confirmed, in 
the final development of the QDR?
    Ms. Fox. Mr. Chairman, it is my understanding that the CAPE 
organization has provided analysis to the Secretary of Defense 
and the rest of the Department throughout the QDR. If 
confirmed, I would get familiar with that analysis and do 
whatever I could to assist in bringing the QDR to an effective 
closure.
    Chairman Levin. Thank you.
    Mr. Kendall, the cost overruns on the Department's 97 
largest acquisition programs now total almost $300 billion over 
the original program estimates, and the programs are an average 
of 22 months behind schedule, even though the Department has 
cut unit quantities and reduced performance expectations on 
many programs in an effort to expedite production and hold 
costs down.
    We enacted the Weapons Systems Acquisition Reform Act 
earlier this year in an effort to begin to address that 
problem, among other problems. Are you familiar with the 
Weapons System Acquisition Reform Act?
    Mr. Kendall. Yes, I am, Mr. Chairman.
    Chairman Levin. Will you make the implementation of that 
Act a top priority of your office, if you're confirmed?
    Mr. Kendall. Absolutely, Mr. Chairman.
    Chairman Levin. As a result of the mergers in the defense 
industry over the last 2 decades, we've seen a number of cases 
in which the same company may be responsible for building a 
weapons system and for providing the Government with 
independent advice on the same weapons system. Now, section 207 
of the Acquisition Reform Act requires the Department to 
promulgate new regulations to address organizational conflicts 
of interest of that kind.
    Do you agree that it is problematic to have the same 
company acting as the prime contractor or a major subcontractor 
for a weapons system and at the same time working as a system 
engineering and technical assistance contractor providing us 
with the advice on that same system?
    Mr. Kendall. I do, Mr. Chairman.
    Chairman Levin. If confirmed, will you ensure that the 
regulations adopted by the Department are as tough as they need 
to be to ensure that we get fair, independent, impartial advice 
from those systems engineering and technical assistance 
contractors?
    Mr. Kendall. Yes, I will, Mr. Chairman.
    Chairman Levin. Over the last 8 years the Department's 
spending on acquisition programs has more than doubled, but the 
acquisition workforce has remained essentially unchanged in 
numbers and in skills. Mr. Kendall, in response to our advance 
policy questions, you stated that you do not believe that the 
acquisition workforce is large enough and that it has the 
skills needed to perform its assigned function.
    Two years ago we established an acquisition workforce 
development fund to ensure that DOD will have the workforce 
that it needs to ensure that the billions of dollars that we 
spend on acquisition programs every year get the planning, 
management, and oversight that they need. Do you agree that the 
Department needs to take strong action to rebuild its 
acquisition workforce, including not only contracting officers 
and contract managers, but also systems engineers, software 
engineers, developmental testers, and cost estimators?
    Mr. Kendall. Yes, I do, Mr. Chairman.
    Chairman Levin. Will you, if confirmed, ensure that the 
Department undertakes the systematic planning needed to 
identify the critical gaps in its acquisition workforce and 
that the acquisition workforce development fund is fully funded 
and is used for its intended purpose?
    Mr. Kendall. Mr. Chairman, I'll certainly do whatever I can 
to strengthen the acquisition workforce.
    Chairman Levin. Including those steps?
    Mr. Kendall. I'll do whatever I can to ensure that it's 
fully funded, yes, sir.
    Chairman Levin. Is there some reluctance to take those 
specific steps? Did I phrase that in a way which causes you 
pause?
    Mr. Kendall. No, Mr. Chairman. The only concern I have is 
that in a budgeting process I would not be the final decision 
authority on funds to go into any given account.
    Chairman Levin. I understand.
    Mr. Kendall. I'm not able to commit to that.
    Chairman Levin. Fair enough. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Yonkers, I've been involved for quite a number of years 
now in the alternative fuels that we are looking at for our 
various capabilities out there, the first one being the coal-
to-liquid that we're using in our B-52s. Now we've expanded 
that to C-17s, F-15s, and others. I felt that back in 2007 when 
they had the energy bill, section 526 made it very difficult, 
made it impossible, to actually use some of these alternative 
fuels.
    In 2008, July 2008, DOD wrote saying that DOD supported my 
legislation, which was to repeal section 526, supported my 
legislation in part because section 526 requires an analysis 
which may never be possible and it potentially affects our 
national security. What they're saying here is that with 
section 526 we can't do it, essentially.
    I think we know that section is targeted at fuel derived 
from the Canadian oil sand and the Air Force's coal-to-liquids 
program. The program's been a successful program and I'd like 
to know your feelings about it and what you intend to do in the 
future in terms of alternative fuels?
    Mr. Yonkers. Let me address the question this way, Senator. 
First of all, I am familiar with the Air Force's effort to 
certify all of the platforms for alternative fuels, be they 
synthetic, biofuels, or other alternatives. I guess where I 
stand on most of this right now is that all options are on the 
table. I think what we need to do is take a look at every one 
of those options and evaluate them, see what makes the most 
sense for the U.S. Air Force, and then go with those options.
    At the same time, I feel that it's necessary to comply with 
the law, specifically the provisions of the Energy Act of 2007, 
and also to be very sensitive to the greenhouse gas emissions 
and the role of climate change or potential impacts as a result 
of those.
    What I would seek sir, is a balance between all of those 
and coming out with a solid, good rationale and decision for a 
path forward.
    Senator Inhofe. If you feel that all of the above, you're 
open to all the alternatives, having section 526 in there as it 
is today, that eliminates those options, so you don't have 
those options, isn't that correct? Would you then support 
repealing 526?
    Mr. Yonkers. I really don't know, sir, at this time exactly 
what the implications of that section of the law.
    Senator Inhofe. All right, that's fine.
    Ms. Fox, everyone agrees that we need to improve the 
acquisition process. We have now this new bureaucracy, I would 
describe it, that's in place to do that. You had stated it's 
likely that additional staff will be needed along with 
organizational changes to fulfill the expanded CAPE, as we 
refer to this. How can you do this without just expanding one 
more or creating another level of bureaucracy? Do you see a 
conflict there or do you think that you'll be able to control 
that?
    Ms. Fox. Sir, I would hope that expanding the analytic 
talent in CAPE would not add to the bureaucracy, because I do 
not believe more bureaucracy is the solution. It is more the 
need to expand the talent in the organization to meet the 
needs----
    Senator Inhofe. That's good enough, Ms. Fox. I just wanted 
to get you aware that there is concern there. I always remember 
what President Ronald Reagan said many years ago in one of the 
greatest speeches of all time in my opinion, ``there's nothing 
closer to life eternal on the face of this Earth than another 
government agency once formed.'' I look at this as perhaps 
falling in that category.
    Secretary Gates has often called acquisition cost overruns 
the reason for cancellation of programs. One of those programs 
that was the reason, the major reason that it was cancelled, 
was the Future Combat System, which is something that I felt 
very strongly about. I think in looking at that problem of cost 
overruns I would like to have, and I assume that Mr. Kendall 
and Ms. Fox would both want to address this, adhering to the 
old Nunn-McCurdy rules, which were not really about as 
stringent as the Weapons System Acquisition Reform Act. But the 
15 percent or more of program growth would have to notify 
Congress, would you still intend to comply with that?
    Ms. Fox. Yes, sir.
    Senator Inhofe. Okay.
    Mr. Kendall. Yes, sir.
    Senator Inhofe. According to the March 2009 GAO report 
there's been a 17 percent increase in the challenges to Federal 
contracts. We've been watching this come up. That's a huge 
thing and I think some of these perhaps are somewhat frivolous 
in these challenges. But do you have any suggestion, any of 
you, how we can try to address this as a problem, these 
challenges to the contracts? This 17 percent increase is pretty 
dramatic.
    Mr. Kendall. Senator Inhofe, I think we have to be careful 
that all of our procurements are done fairly, objectively, and 
transparently so that there is no basis really to challenge 
them. That's the first thing we have to do.
    I think industry now, as there are perhaps fewer 
opportunities, is more inclined to challenge them and that may 
be something that's impacting that figure also.
    Senator Inhofe. All right. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you all for your willingness to serve.
    Ms. Fox, let me follow up with a similar line of 
questioning. There are many changes involved in the Weapons 
System Acquisition Reform Act. One is to transform the Cost 
Analysis Improvement Group into the CAPE Group. You've already 
indicated, as Senator Inhofe suggested, that you think there 
are more resources necessary. Could you be more specific? Also, 
in this transition how much flexibility will you have in this 
organization of getting new people in, downsizing if you have 
to, and upsizing? Can you comment?
    Ms. Fox. Yes, sir, I can. The Weapon System Acquisition 
Reform Act does expand the responsibility of the organization, 
and for that reason I believe that we will need to add analytic 
talent in the organization. Doing that carefully, in a way that 
maintains quality, I do consider to be a challenge, but an 
important one that I would address.
    It is my understanding the Department already has allocated 
some additional billets to the CAPE organization.
    Senator Reed. Do you have an idea of when this organization 
will be up and running to your satisfaction?
    Ms. Fox. I'm sorry, Senator, I do not have enough 
information at this time to give you an assessment.
    Senator Reed. One of the things that you're going to have 
to do, Ms. Fox, in your organization is to make a risk 
assessment, essentially a confidence level, that the program 
will stay within the estimated costs, 50 percent, 60 percent, 
70 percent. How comfortable do you think you are with that sort 
of estimate? Is it too much to ask for that kind of estimate, 
or do you need a range of like X percent to Y percent? How do 
you proceed on that point?
    Ms. Fox. Senator, I believe that a risk assessment is a 
vital part of cost estimation. If you don't have a feeling of 
how much risk you're accepting, the cost estimate for a program 
won't be a very valuable number. But I do believe the range and 
the accuracy of risk assessments will have to be determined on 
a case-by-case basis, so I can't give you one number. But I 
believe it's very important, and I believe it's doable.
    Senator Reed. In many cases we find operation and support 
costs associated with the project rise just as quickly as the 
other costs. Is that going to be part of your estimate, too?
    Ms. Fox. Yes, sir. I think getting a handle on operational 
support costs and the methods for estimating them is an 
important part. But I don't have enough information yet to tell 
you exactly how we will do that.
    Senator Reed. Thank you.
    Mr. Kendall, one of the things that we have observed over 
the last 7 or 8 years has been the discovery of a need for an 
item of equipment in a combat zone--Iraq, Afghanistan--and it 
seems a slow response to get that equipment out. The Mine 
Resistant Ambush Protected vehicle is one example, but that's 
one of hundreds probably. What can we do to make the system 
more rapid and more effective?
    Mr. Kendall. Senator Reed, I understand that the Department 
has addressed this problem. I haven't had a chance to review 
exactly what steps they've taken. I know there are offices that 
are set up specifically to do things very rapidly.
    I would agree that a separate track, with much more 
streamlined processes, is necessary to support operational 
forces, and if confirmed, I would review that carefully to make 
sure that's being done as effectively as it can be.
    Senator Reed. You would not only look at that, but you'd 
also, I would presume, be responsible for that structure, the 
offices that would do that, the way it would be expedited?
    Mr. Kendall. As I understand it, right now those all do 
fall under acquisition. Some of them fall under the Director, 
Defense Research and Engineering. Some of them would fall 
directly under me as a line manager and others in my broader 
role in the organization.
    Senator Reed. Let me ask you another question, which is the 
defense industrial base is always an issue of concern. Can you 
give us a quick assessment from your perspective?
    Mr. Kendall. Sir, I can't give a complete assessment 
because I haven't had an opportunity to review any detailed 
data or to do one. But the industrial base is obviously of very 
great concern. I grew up in this business during the Cold War 
when we had a very robust, very broad industrial base. It's 
shrunk a lot since that time. I think there is a very open 
question as to the health of the base in certain areas and I 
think it needs to be reviewed on a case-by-case basis, 
particularly some segments of the industrial base. It's a very 
important priority for me.
    Senator Reed. Thank you.
    Ms. Commons, this is a question that you probably are not 
involved with in detail, but it's one you're going to have to 
confront. In 2009, the Navy had substantial shortfalls in their 
personnel accounts and it was significant because it was 
delaying bonuses and freezing pay, et cetera. I've been told, 
particularly by my colleagues, you have to pay troops. They get 
very upset if they're not paid, the soldiers, sailors.
    I wonder if you can give us any insight on this and 
anything that you would do to avoid this problem in the future?
    Ms. Commons. Yes, sir. I know that funding the personnel 
account has been a challenge. I'm familiar with the 
reprogramming that had to take place in 2009 and I think that 
if confirmed I would have to look at the personnel accounts to 
see that they are fully funded. That would be my goal, to 
review those accounts to make sure that they are in fact fully 
funded for the troops.
    Senator Reed. Thank you very much, Ms. Commons.
    Mr. Yonkers, Senator Inhofe raised the issue that I'm 
interested in. That is the efforts within the Department of the 
Air Force to use biofuels, to do a lot of interesting research. 
I think in your capacity you're going to be at the forefront of 
these efforts. They have broader applications, more than just 
Air Force and DOD. I would encourage your efforts, your energy, 
your enthusiasm, and your vision to do that. Thank you for your 
willingness to serve.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Let me thank all four of you for your willingness to serve 
and your families for their commitment, too.
    Mr. Yonkers, you and I discussed several issues related to 
depots and military housing last week during your courtesy call 
to my office, which I appreciate very much, and I wanted to 
follow up on just a couple of things this morning. The National 
Defense Authorization Act for Fiscal Year 2010 will address the 
most important depot issue that we've been working on recently, 
which is the inclusion of major modifications in the definition 
of ``depot maintenance''. We talked about it in some detail.
    I think you understand how important it is that this type 
of work continues to be done in the depots. For the record, I'd 
just like your confirmation that, if confirmed, you will comply 
with the provision in the National Defense Authorization Act 
for Fiscal Year 2010, not make any adjustments in DOD's 
interpretation of the relevant provisions in the law prior to 
consulting with Congress, and in particular this committee.
    Mr. Yonkers. Yes, sir, if confirmed, I will do that.
    Senator Chambliss. Thank you.
    Second, we also discussed the privatized housing issue, as 
I noted, in most cases DOD privatized housing projects have 
worked extremely well and we are getting first-class housing to 
our men and women at a faster rate with private sector 
involvement. But there have been a couple of particular 
situations that have not worked so well. The situation with 
American Eagle projects at Moody Air Force Base and three other 
Air Force bases is a glaring exception to the positive trend, 
and again I'd just like your assurance that if confirmed you'll 
be committed to properly overseeing these projects, keeping 
Congress, and in particular this committee, apprised of any 
problems that arise with respect to those issues.
    Mr. Yonkers. Yes, sir, I will if confirmed.
    Senator Chambliss. Thank you.
    Ms. Fox, if confirmed, you would obviously be the first 
Director of Cost and Assessment and Program Evaluation. We 
obviously have high hopes for what your position can do in 
terms of helping curb what has been a history of spiraling cost 
growth within the acquisition and procurement sector of DOD. 
The chairman has already alluded to the numbers. Based upon 
your resume, I see you have extensive experience in defense 
analysis and management.
    Based upon your experience, what do you think are the key 
problems with our current processes?
    Ms. Fox. Sir, I believe that getting accurate cost 
estimates in front of decisionmakers as early as possible could 
help very much with the problem of spiraling costs. I also 
believe changing requirements after programs have been started 
is a large factor contributing to cost growth in acquisition 
programs. These are just two of many factors that we will need 
to look at in CAPE, sir, if I am confirmed.
    Senator Chambliss. Your second point is particularly well 
taken. I can think of a number of weapons systems that I have 
had personal involvement in where that's exactly what's 
happened. We task our defense industrial base to build us a 
weapon system and then all of a sudden we keep moving the goal 
post on them.
    I think the chairman and Senator McCain's bill does address 
this in a very strong way, and again we're going to be looking 
to you for your guidance to Congress, as well as to the various 
Services, not to continue to move those goal posts.
    Do you agree with the premises of the Weapons Acquisition 
Reform Act in terms of where it identifies and corrects 
problems in the system?
    Ms. Fox. Yes, sir, I do.
    Senator Chambliss. Are there any other suggestions that you 
might have at this point that could help us in that respect?
    Ms. Fox. Sir, not at this time. If confirmed, I would 
certainly look for them, but I have no suggestions to offer at 
this time.
    Senator Chambliss. I would just encourage you that as you 
go through this, we are not the experts here. It's you folks 
that we rely on. So if you see where there are additional 
improvements that we could be making, I know the chairman, 
Senator McCain, and all members of the committee are interested 
in making sure that we truly do reform this acquisition 
process, because that's where we're spending a lot of taxpayer 
money that, frankly, we all agree we ought not to be spending. 
Please don't hesitate to let us know and give us justified 
criticism if we can make additional improvements.
    Mr. Kendall, one of the things you discussed in your 
advance policy questions is the challenge of maintaining the 
strength and resiliency of our national defense industrial 
base. In your opinion, what has changed in the defense 
industrial base over the last 10 to 20 years?
    Mr. Kendall. There have been some changes in the industrial 
base that have basically resulted from changes in what the 
Defense Department has bought and how it has bought it. We've 
had fewer new starts, so there are fewer opportunities for 
design teams to do their work. Quantities have been smaller. In 
general, there's been a lot of consolidation in the industrial 
base as a result.
    I'm concerned about these things. I have not seen a 
detailed analysis of the exact effects and at this point I'm 
not prepared to talk about corrective action. But I do think 
it's a high priority we need to look at very carefully.
    Senator Chambliss. You're certainly very correct in 
pointing out that the shrinking industrial base has been a real 
issue. I'm not sure that any of us know what the answer is, but 
again I'll say the same thing as I did to Ms. Fox, that as you 
get your legs under you in your new position if you see any 
areas that we can improve the policy related to this process, 
particularly to make sure that we maintain that strong 
industrial base, which certainly we need, we would appreciate 
you letting us know and don't hesitate to provide information 
to us on that issue.
    Mr. Kendall. Absolutely, Senator.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I, too, want to thank our nominees for your willingness to 
serve and the commitment that your families make as well to 
that. Thank you for being here today and for the good work that 
you will do for our country.
    Mr. Yonkers, as you may know, the Air Force is currently in 
the process of drafting an environmental impact statement (EIS) 
for the proposed air space expansion of the Powder River 
Complex, which will be located above South Dakota, Wyoming, 
Montana, and North Dakota. The draft EIS was originally 
scheduled to be published this past summer, but due to some 
delays I understand the draft EIS is now due out next spring or 
summer.
    I have a deep and abiding interest in assisting the Air 
Force in completing this initiative to expand the Powder River 
Complex because I believe it will save a tremendous amount of 
dollars for the Air Force in terms of fuel costs and aircraft 
wear and tear. My question is: Are you familiar with that 
proposed air space expansion at the Powder River Complex? If 
so, what are your views on that expansion? If you're not 
familiar with it, I'd be interested in maybe having you furnish 
your views for the record once you do get familiarized with 
that subject.
    Mr. Yonkers. Thank you, Senator, for the comment. I am not 
familiar with this particular issue, but I'm pretty familiar 
with the National Environmental Policy Act (NEPA) process and 
the reasons for it and the utility for going through that 
process. I'm very sensitive to the needs of the Air Force and 
other members of the Department with regard to these kinds of 
requirements, and if I'm confirmed I'll certainly look into it 
and get back with you specifically with any issues or questions 
that you may have.
    Senator Thune. I would appreciate that, when you're 
confirmed, if you could take a look at that and just maybe 
provide some of your thoughts about it. It is a work in 
progress. Clearly, there are some delays associated with it. 
Your familiarity with the NEPA process might be useful in 
helping us sort through those issues and hopefully make sure 
that it stays on track for next spring.
    I understand the concern about making sure that 
everything's done right and by the book to avoid any future 
problems down the road, and I'm certainly sympathetic to that. 
But it is something I think that would make a lot of sense for 
the Air Force from the standpoint of fuel costs and wear and 
tear on aircraft, as I said. I would like to at some point 
circle back with you on that.
    One other question I wanted to raise has to do with a 
policy that's been put in place by the Air Force. Last year 
Secretary Donley signed the Air Force energy policy, which 
among other things established a couple of goals with respect 
to using alternative fuels in the Air Force aircraft fleet. 
Senator Inhofe alluded to this a little bit, but our goal is to 
test and certify the aircraft fleet on a 50-50 alternative fuel 
blend by 2011. By 2016, the Air Force also plans to acquire 50 
percent of the Air Force's domestic aviation fuel requirement 
via an alternative fuel blend in which the alternative 
component is derived from some domestic source.
    My question would be how well is the Air Force proceeding 
toward reaching these alternative fuel goals? Do you think 
those goals are realistic, and if you are confirmed, what will 
you do in this very influential position to have the Air Force 
reach these goals?
    Mr. Yonkers. First of all, again, I appreciate your 
question. I'm not real familiar with the total portfolio of the 
Air Force's energy portfolio. I am familiar with that section 
of law with regards to the balancing between the synthetic 
fuels and the conventional fuels and trying to balance the 
greenhouse gas emissions from those.
    At this point in time it would be safer to say that if I'm 
confirmed I'll look into that as well. It's certainly one of 
those areas that I think is a top priority for the Air Force, 
not only in terms of looking at those alternatives, but the 
energy efficiencies of the renewables and all of the things 
that were incorporated in the energy law as well as the recent 
executive order by President Obama and the executive order 
signed by President Bush.
    Senator Thune. Secretary of the Navy Ray Mabus announced 
last week plans to field what he dubbed ``the great green 
fleet'' by 2016. Part of that plan would be to fuel the carrier 
strike groups aircraft using only renewable biofuels. If 
confirmed, I assume you would plan on partnering with the other 
Services in order to collaborate and coordinate research and 
development of these types of renewable biofuels?
    Mr. Yonkers. Yes, sir, and even outside DOD and the 
Military Services, with the Department of Energy and other 
agencies of Government that have those kinds of 
responsibilities.
    Senator Thune. Good. The Air Force is the largest purchaser 
of aviation fuels. Tremendous cost. If there's any spike in 
price of fuels, of course, it has a great impact on cost to the 
Air Force. But just as importantly, if not more importantly, is 
this dangerous reliance we have on foreign fuels. That's why 
those goals I hope become reality in terms of the Air Force 
being able to transition to fuels that are sourced 
domestically, so that we don't have to deal with the 
uncertainty of what's going to happen in the Middle East with 
regard to fuel supply.
    These are issues that I hope that you'll really undertake 
to achieve those goals and to work on integrating more of the 
domestic fuels and the biofuels into the mix.
    I appreciate that, Mr. Chairman, and thank you all again 
for your service.
    Senator Reed [presiding]. Thank you very much.
    Senator Sessions.
    Senator Sessions. Thank you, Senator Reed.
    I congratulate all of you on your nominations. I think the 
Senate will do its duty and you'll move right along.
    Mr. Kendall, the recently released request for proposal by 
the Air Force marks the third attempt in nearly a decade to 
acquire a replacement for the KC-135 refueling tanker. The 
first two attempts were marred by controversy. First there was 
a leasing scandal, and people went to jail over that; and then 
a bid protest. Do you believe that it's possible, given the 
outcomes of those attempts, that there might have been 
overcompensation in the development of the current request for 
proposal (RFP) and that as a consequence of that overcorrection 
to make the RFP foolproof or technically unassailable that an 
unintended consequence might be that the warfighter gets a less 
capable platform or is in some ways disadvantaged?
    Have you had a chance to look at that and will you comment 
on it?
    Mr. Kendall. Senator Sessions, I have not. I am sorry; I 
can't really give an answer to your question.
    Senator Sessions. If you were bidding on the purchase of a 
house or some other important item in your life, I think we 
would all know that price alone is not the most important 
thing. There are other qualities that go into making the kind 
of selection that Americans do every day. You want a good 
price, but you want a good price for the best value and the 
capabilities you get.
    Do you believe that under normal circumstances the best 
value for the warfighter is what we should be seeking?
    Mr. Kendall. In general, Senator Sessions, I would agree 
with you, best value, in which obviously price is a very 
important factor.
    Senator Sessions. Some have contended that the best price 
in this would be just to reproduce the existing KC-135. 
Originally the Air Force proposed and their goal was to obtain 
a game-changer, a step up in quality and capabilities. It's 
just something I know will be in your portfolio. It will be an 
important issue. It's the Air Force's number one priority in 
acquisition and we are way behind schedule, and I hope that--
and you will be a leader in this--will just make up your mind 
to do the best and fair bid and call it like it is. I think 
that's all we can ask, but I think we have a right to ask for 
that. Don't you?
    Mr. Kendall. Absolutely, Senator Sessions.
    Senator Sessions. Do you see, Mr. Kendall, similarities 
between the goal for the current acquisition plan for the 
replacement aerial refueling tanker and the newly proposed plan 
for the Littoral Combat Ship? I'll just follow up to say that 
some might call an overemphasis on basic costs, just the lowest 
cost, seems to be a theme in those two bids. I realize cost is 
a very important component. I don't deny that. But do you have 
any concerns that, despite all the affirmations to the 
contrary, we are trending toward an acquisition strategy that 
is based on low-cost shootouts?
    Mr. Kendall. As I said earlier, Senator Sessions, cost is a 
very important factor, but in many procurements it should not 
be the only factor. There are other things that contribute to 
value as well. I share your views on that.
    Senator Sessions. I would agree. These ships are quite 
different in their capabilities.
    Mr. Chairman, I thank our members for this hearing. I will 
probably submit some written questions as follow-up. I wish you 
all success, and if you are fortunate to be confirmed, I know 
that you will commit yourself to making sure our military men 
and women have the best value systems that can help them be 
successful as they serve America, often in harm's way.
    Senator Reed. Thank you very much, Senator Sessions.
    Ladies and gentlemen, thank you for your excellent 
testimony, your willingness to serve, and the willingness of 
your family to support that service. There are no questions 
that I can see, so I will use my temporary power to adjourn the 
hearing.
    [Whereupon, at 10:35 a.m., the committee adjourned.]

    [Prepared questions submitted to Christine H. Fox by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Currently, I have no changes to the Act that I would 
recommend.
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    N/A.
                      duties and responsibilities
    Question. The Weapon Systems Acquisition Reform Act (WSARA) of 2009 
established  the  position  of  Director  of  Cost  Assessment  and  
Program  Evaluation  (D/CAPE) and makes that official ``responsible for 
ensuring that cost estimates are fair, reliable, and unbiased, and for 
performing program analysis and evaluation functions currently 
performed by the Director of Program Analysis and Evaluation.'' The 
duties and responsibilities of this new position are set forth in 
section 139c of title 10, U.S.C. and in section 2334 of such title 
(addressing independent cost estimation and cost analysis). If 
confirmed, you would be the first D/CAPE.
    What is your understanding of the primary duties and 
responsibilities of the D/CAPE?
    Answer. I have read the law signed by the President and I 
understand that D/CAPE is responsible for providing independent cost 
estimates for all major acquisition programs; ensuring that program 
cost and schedule estimates are properly prepared and considered in the 
Department's deliberations on major acquisition programs; providing 
guidance and oversight for Analyses of Alternatives (AOAs) to ensure 
that the Department considers the full range of program and non-
materiel solutions. Additionally, D/CAPE is responsible for leading the 
development of improved analytical skills and competencies within the 
cost assessment and program evaluation workforce of the Department of 
Defense (DOD).
    Question. Do you believe that the D/CAPE has the authority needed 
to carry out the duties and responsibilities assigned by statute?
    Answer. Yes.
    Question. Do you see any need for modifications in the duties and 
responsibilities of the D/CAPE?
    Answer. Not at this time. If confirmed, I would evaluate any need 
for modifications to the duties and responsibilities in the law.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect the Secretary of Defense to assign to you in 
accordance with sections 113 and 139c(b)(1)(B) of title 10, U.S.C.?
    Answer. If confirmed, I expect the Secretary to assign me the 
duties and functions commensurate with the D/CAPE position, and any 
others he may deem appropriate.
                             qualifications
    Question. If confirmed as D/CAPE, you will be the principal 
official in DOD responsible for cost estimation and cost analysis for 
acquisition programs; for review, analysis, and evaluation of 
acquisition programs; and for related matters.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have served as a defense analyst, leader, and manager for 
nearly 30 years. I have personally conducted analyses on a broad range 
of issues spanning the conduct of military operations, operational 
testing, and systems trade-offs. I have overseen the analysis of 
program evaluation, acquisition, and cost issues. As the leader of a 
Federally Funded Research and Development Center (FFRDC), I have been 
responsible for providing independent, objective analyses to military 
and civilian leaders across the Defense Department. I have hired, 
trained, and developed numerous analysts and have set the analytic 
standard that governed their performance.
    Question. What background and experience do you have in the 
acquisition of major weapon systems?
    Answer. I have considerable experience as a manager and leader of 
acquisition analysis in an FFRDC environment. I have analytic 
experience with all phases of the acquisition process from Analysis of 
Alternatives through operational testing and finally, to the 
introduction of a new system to fielded forces.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the D/CAPE?
    Answer. The WSARA of 2009 is intended to reform defense acquisition 
processes and to bring cost growth under control. The additional 
responsibilities and requirements placed upon the new CAPE 
organization, and the need to tailor CAPE to meet these requirements 
will be a tremendous challenge. The size, shape, and organization of 
the CAPE workforce must be reviewed in detail, and the new organization 
tailored to satisfy the law, and to continue providing the Secretary of 
Defense with the necessary support that he needs.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I expect to immediately undertake a review of 
the organization and its ability to fully meet statutory requirements, 
with the goal to provide clear recommendations regarding changes to 
organizational structure and additional resource demands. Given the 
sweeping nature of the changes involved with the law, I fully expect 
that additional staff and resources are necessary to comply with the 
statutory requirements.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The D/CAPE provides the Secretary and Deputy Secretary of 
Defense unbiased advice, supported by strong analysis, on how to make 
rational trade-offs in a resource constrained environment. The Director 
is the principal advisor to the Secretary for cost assessment and 
program evaluation. If confirmed, I would closely interact with the 
Secretary to ensure his directives, goals, and themes are reflected in 
the programs of DOD.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would expect to interact with the Deputy 
Secretary to provide unbiased recommendations concerning resource 
allocation, programmatic alternatives, and cost assessments.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Acquisition, Technology, and Logistics) (USD(AT&L)) to 
ensure that acquisition plans and decisions are appropriately supported 
with accurate and unbiased estimates of the costs to develop and 
procure weapon systems. The CAPE director must also provide the 
USD(AT&L) frequent input about the viability, execution ability, and 
affordability of programs that support the national military strategy.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Comptroller) to ensure the necessary integration of 
developing the Future Years Defense Program with budget plans.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Intelligence) to coordinate assessments of special access 
and compartmented intelligence programs since the CAPE Director has 
oversight of all DOD resource allocation, including intelligence 
programs. The central importance and complexity of intelligence to our 
tactical, operational, and strategic operations requires regular 
interactions with the primary intelligence official, and his staff.
    Question. The Joint Requirements Oversight Council (JROC).
    Answer. If confirmed, I would work as an advisor to the Joint 
Requirements Oversight Council for assessing the resource requirements 
and programmatic risk of desired capabilities. I would not be a member 
of the JROC, however I would attend meetings and provide assessments of 
programs, if invited. The importance of requirements to the acquisition 
process makes interaction with the JROC members a key imperative for 
the Director of CAPE.
    Question. The Defense Business Systems Management Committee 
(DBSMC).
    Answer. If confirmed, I would ensure regular interaction with the 
DBSMC, providing assessments and advice.
    Question. The Director of Operational Test and Evaluation (DOT&E).
    Answer. If confirmed, I would ensure a close working relationship 
with the DOT&E, and ensure that CAPE and DOT&E freely share information 
and data. I believe that operational testing is critical to ensuring 
that weapon systems developed within DOD meet requirements, are 
reliable, and are cost effective. Careful consideration of operational 
testing results often point to weaknesses inherent in programs that 
impact costs, as well as pointing to considerations important for later 
programs.
    Question. The Service Secretaries.
    Answer. Service Secretaries provide critical oversight of their 
departments, particularly regarding plans, programs, and policies. If 
confirmed, I would endeavor to establish close working relationships 
with Service Secretaries, working together to solve key problems 
relating to each Service.
    Question. The Chiefs of Staff of the Military Services.
    Answer. Service Chiefs have responsibilities to organize, man, 
train, and equip their Services to meet warfighting requirements and 
support combatant commanders. Their title 10 responsibility for 
planning and programming of resources, as well as to develop 
acquisition programs, ensure regular interaction between the Director 
of CAPE and Chiefs of Staff of the Military Services. If confirmed, I 
would ensure that I quickly develop close working relationships with 
Service Chiefs in order to jointly meet the many challenges within DOD.
    Question. The combatant commanders.
    Answer. The combatant commanders are the key consumers of the 
``products'' developed in the Pentagon--the forces, programs, and other 
capabilities necessary to implement the National Security Strategy. It 
is imperative to meet the needs of the combatant commanders. If 
confirmed, I would endeavor to understand the needs of the combatant 
commanders and to advocate for programs that support their 
requirements. I would ensure that I know and react to their needs.
    Question. The heads of the defense agencies.
    Answer. The defense agencies have responsibilities to develop 
programs and budget to meet their requirements. If confirmed, I would 
be sensitive to the needs of the defense agencies and be available to 
help address their challenges.
    Question. The Service acquisition executives.
    Answer. If confirmed, I would work closely with Service acquisition 
executives to provide analysis, to meet the challenges of troubled 
programs, and if required, develop alternatives to meet defense needs.
    Question. The program executive officers and program managers of 
major defense acquisition programs.
    Answer. If confirmed, I would work closely with program executive 
officers and program managers to provide analysis to help meet the 
challenges of troubled programs and if required, develop alternatives 
to meet defense needs.
    Question. The cost estimating offices of the military departments.
    Answer. If confirmed, I would ensure a close working relationship 
with the cost estimating offices of the military departments, ensuring 
that independent cost estimates fully represent the Service acquisition 
plans. The cost estimating offices of the military departments provide 
the baseline data and plans that form the basis for cost estimates for 
acquisition programs.
                       organization and staffing
    Question. What is your understanding of the extent to which the 
Department has made the changes necessary to establish the office of 
the D/CAPE, in accordance with the statutory requirements?
    Answer. My understanding is that the Department has taken 
preliminary steps to establish the office of the D/CAPE in accordance 
with the statutory requirements and some early planning has been 
accomplished. If confirmed, I would review these plans and move rapidly 
to transitioning the new CAPE organization to meet the goals of the 
WSARA.
    Question. What steps do you believe you will need to take, if 
confirmed, to ensure that the office of the D/CAPE is fully functional 
and organized in a manner consistent with statutory requirements?
    Answer. If confirmed, I would develop a strategic plan to 
transition the organization into fulfilling its expanded roles and 
responsibilities in a way that both meets the intent of WSARA and the 
needs of the Department. It is likely that additional staff will be 
needed along with organizational changes to fulfill the expanded CAPE 
responsibilities and fully comply with the statutory requirements of 
WSARA.
    Question. Do you see the need for any changes in the structure, 
organization, or reporting relationships of the office of the D/CAPE?
    Answer. Not at this time. If confirmed, I would evaluate the 
current structure, organization, and reporting relationships of the 
office of the D/CAPE and recommend adjustments, if needed. If 
confirmed, I would assess these issues and recommend changes as 
necessary.
    Question. Section 139c(d)(8) of title 10, U.S.C., requires the D/
CAPE to lead ``the development of improved analytical skills and 
competencies within the cost assessment and program evaluation 
workforce of the Department of Defense.'' Section 2334(f)  of  title  
10,  U.S.C.,  requires  the  Secretary  of  Defense  to  ensure  that  
the  D/CAPE has sufficient staff of military and civilian personnel to 
enable the Director to carry out the duties and responsibilities of the 
Director under this section.''
    Do you believe that the office of the D/CAPE currently has 
sufficient staff of appropriately qualified and trained personnel to 
carry out its duties and responsibilities?
    Answer. No. I believe that the Government staff of the legacy Cost 
Analysis Improvement Group, which has already transitioned to Cost 
Assessment within CAPE, will need to grow substantially to meet the 
expanded cost assessment responsibilities and requirements in WSARA. 
The Government staff of Program Evaluation within CAPE is also likely 
to grow to fulfill new responsibilities within WSARA. If confirmed, I 
would move rapidly to develop, mature, and execute early transition and 
strategic plans so that CAPE will help the Department realize the 
program performance goals established by the President and Congress.
    Question. What steps do you plan to take, if confirmed, to assess 
the staffing needs of your office and ensure that you have sufficient 
staff of appropriately qualified and trained personnel to carry out 
your duties and responsibilities?
    Answer. If confirmed, I would review the assessments and planning 
done to date, and would provide further guidance as required to fully 
implement the WSARA. I do foresee the need for additional staff given 
the requirements specified in the statutory regulations.
    Question. What is your view of the current staffing of cost 
assessment and cost estimating functions of the military departments 
and defense agencies?
    Answer. I do not have detailed knowledge of the staffing of cost 
assessment and cost estimating functions of the military departments 
and defense agencies. However, if confirmed, as I develop the strategic 
plan for CAPE, I intend to examine closely its relationships with the 
military department and defense agency counterparts to ensure the 
larger DOD cost community is well positioned to support the goals of 
WSARA.
    Question. If confirmed, what role if any do you expect to play in 
ensuring that the cost assessment and cost estimating functions of the 
military departments and defense agencies have sufficient staff of 
appropriately qualified and trained personnel to carry out their duties 
and responsibilities?
    Answer. The WSARA establishes the Director, Cost Assessment and 
Program Evaluation in the role as the primary advocate for the entire 
DOD cost community. If confirmed, I would work to ensure that cost 
assessment and cost estimating functions for the entire Department have 
sufficient resources and are provided the necessary guidance and 
authorities that are essential to improve the performance of DOD 
programs.
                          acquisition process
    Question. What is your understanding of the role of the D/CAPE in 
the acquisition process?
    Answer. My understanding is that the D/CAPE will play several key 
roles in the acquisition process. The D/CAPE is responsible for 
providing guidance and oversight for AOAs to ensure that the 
Department, at the earliest point possible, considers the full range of 
program and non-materiel alternatives that might provide the needed 
military capabilities, as quickly as possible, at the lowest possible 
cost. The D/CAPE is also responsible, throughout the entire acquisition 
process, for ensuring that program cost and schedule estimates are 
properly prepared and considered in the Department's deliberations on 
major acquisition programs and that the program is likely to achieve 
the desired capabilities.
    Question. What is your view of the significance of sound, unbiased 
cost estimating throughout the acquisition process?
    Answer. I believe that sound and unbiased cost and schedule 
estimates, including thorough risk assessments, are absolutely 
essential for effective acquisition decisionmaking and oversight. 
Achieving the goal of reducing cost and schedule growth in the 
Department's portfolio of acquisition programs will not be possible if 
good cost estimates are not available and considered throughout the 
acquisition process.
    Question. What is your understanding of the role of the D/CAPE in 
the requirements and resource-allocation processes?
    Answer. On the requirements side, the Director is an advisor to the 
Joint Requirements Oversight Council for assessing the resource 
requirements and programmatic risk of a desired capability. On the 
resources side, the Director is responsible for executing the planning 
and programming phases of the Department's planning, programming, 
budgeting, and execution system (PPBES).
    Question. Do you see the need for any additional processes or 
mechanisms to ensure coordination between the budget, acquisition, and 
requirements systems of DOD and ensure that appropriate trade-offs are 
made between cost, schedule, and performance requirements early in the 
acquisition process?
    Answer. The  WSARA  assigns  greater  authorities  and  
responsibilities  to  the  D/CAPE in the requirements and acquisition 
process for programs that have not achieved Milestone B approval. If 
confirmed, I intend to use these authorities to the fullest extent to 
ensure that programs are properly initiated and are postured for 
success. I would evaluate and recommend adjustments, if needed, in the 
current requirement, acquisition, and budget processes to facilitate 
trade-offs and to ensure program success.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, projected increases in end 
strength, and asset recapitalization?
    Answer. I do not have detailed knowledge of the trade-offs between 
the current investment budget and the other pressures on resources 
within the total provided to the Department.
    Question. If not, what role do you see for the D/CAPE in addressing 
this issue?
    Answer. If confirmed, I would evaluate these trade-offs and 
recommend adjustments, if needed, and provide management direction as 
necessary to ensure that we have an affordable, long-term investment 
strategy.
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. As Senator Levin explained at a June 2008 hearing, 
``contractors and program offices have every reason to produce 
optimistic cost estimates and unrealistic performance expectations, 
because programs that promise revolutionary change and project lower 
costs are more likely to be approved and funded by senior 
administration officials and by Congress.''
    Do you agree with the assessment that overly optimistic cost and 
schedule estimates and unrealistic performance expectations contribute 
to the failure of major defense acquisition programs?
    Answer. Yes.
    Question. What steps if any would you take, if confirmed, to ensure 
that the Department's cost, schedule, and performance estimates are 
realistic?
    Answer. I do not have sufficient knowledge to offer a complete 
assessment at this time; however, if confirmed, one key step I would 
take is to advocate use of Independent Cost Estimates, developed or 
approved by the D/CAPE, at acquisition milestones and other key 
decision points in the acquisition process.
    Question. Do you believe that early communication between the 
acquisition, budget, and requirements communities in DOD can help 
ensure more realistic cost, schedule, and performance expectations?
    Answer. Yes.
    Question. If so, what steps if any would you take, if confirmed, to 
assist in such communication?
    Answer. If confirmed, I would consider expanding the joint 
deliberations that have been developed between the acquisition, 
requirements, and PPBE processes.
    I would also consider improvements in information systems in the 
acquisition, budget, and requirements community to enable improved 
sharing of information between these communities, and to enhance the 
transparency of the information both within and outside of the 
Department.
    Question. Nearly half of DOD's 95 largest acquisition programs have 
exceeded the so-called ``Nunn-McCurdy'' cost growth standards 
established in section 2433 of title 10, U.S.C., to identify seriously 
troubled programs. The cost overruns on these major defense acquisition 
programs now total $295 billion over the original program estimates, 
even though the Department has cut unit quantities and reduced 
performance expectations on many programs in an effort to hold costs 
down.
    What role do you see for the D/CAPE in controlling the out-of-
control cost growth on DOD's major defense acquisition programs?
    Answer. I expect that the enhanced WSARA requirements for program 
certifications will help to place programs on a sound foundation at key 
decision points in the acquisition process. For new programs, the new 
2366a requirements at Milestone A will be effective in helping to 
establish realistic program definition and cost and schedule targets, 
as early as possible, to help reduce future cost growth. For programs 
already underway, the 2366b certifications required for programs beyond 
Milestone B will be effective in putting troubled programs on a more 
stable footing and reducing further cost growth.
    Question. In the Budget Blueprint that supports the fiscal year 
2010 Presidential budget request, the administration committed to 
``set[ting] realistic requirements and stick[ing] to them and 
incorporat[ing] `best practices' by not allowing programs to proceed 
from one stage of the acquisition cycle to the next until they have 
achieved the maturity to clearly lower the risk of cost growth and 
schedule slippage.''
    What role do you see for the D/CAPE in helping to ensure that the 
Department makes good on this commitment?
    Answer. D/CAPE is the principal official in DOD responsible for 
cost and schedule estimation and for assessing expected program 
effectiveness.
    Question. Over the last several years, the Government 
Accountability Office (GAO) has prepared a series of reports for this 
Committee comparing the DOD approach to the acquisition of major 
systems with the approach taken by best performers in the private 
sector. GAO concluded that private sector programs are more successful 
because they consistently require a high level of maturity for new 
technologies before such technologies are incorporated into product 
development programs. The Department has responded to these findings by 
adopting technological maturity goals in its acquisition policies.
    How important is it, in your view, for the Department to mature its 
technologies with research and development funds before these 
technologies are incorporated into product development programs?
    Answer. In my view it is critical for programs to reach the 
appropriate level of maturity before proceeding to the next acquisition 
stage.
    Question. What role do you see for the D/CAPE in helping to ensure 
that the key components and technologies to be incorporated into major 
acquisition programs meet the Department's technological maturity 
goals?
    Answer. If confirmed, I would ensure that technology risks and 
maturity levels are fully incorporated in the cost and schedule 
assessments, including Independent Cost Estimates, prepared for all 
major programs.
    DOD has increasingly turned to incremental acquisition and spiral 
development approaches in an effort to make cost, schedule, and 
performance expectations more realistic and achievable.
    Question. Do you believe that incremental acquisition and spiral 
development can help improve the performance of the Department's major 
acquisition programs?
    Answer. Yes, I believe that incremental acquisition and spiral 
development could be an effective way to reduce acquisition risk and 
should be considered whenever appropriate across DOD's portfolio of 
acquisition programs.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. I do not have the detailed knowledge to make an informed 
assessment. I believe that the use of this approach must be considered, 
on a case-by-case basis, with all factors assessed and weighed in the 
decision. If confirmed, I would advocate for the consideration and 
evaluation of spiral development and incremental acquisition strategies 
in all applicable situations.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. I do not have sufficient knowledge to offer a detailed 
assessment at this time; however, I believe that these areas need to be 
flexible enough to support incremental acquisition and spiral 
development approaches.
    Question. How should the Department ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. The Department is required to prepare and measure 
performance against rigorous acquisition program baselines for major 
acquisition programs, including acquisition programs that employ these 
concepts. If confirmed, I would ensure realistic independent cost and 
schedule estimates are prepared for all major acquisition programs, 
including the programs that employ these concepts.
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    What are your views on multi-year procurements? Under what 
circumstances do you believe they should be used?
    Answer. In general, I believe that multi-year procurement 
strategies can result in savings. I recognize that multi-year contracts 
offer the possibility of cost savings from economic order quantities. 
If confirmed, I would ensure the CAPE organization prepares unbiased 
analyses to quantify the resultant savings from the use of multi-year 
procurement strategies, and to assess the impact on the Department of 
reductions in acquisition and budget flexibilities.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense multi-
year procurement statute, 10 U.S.C. Sec.  2306b?
    Answer. I do not have sufficient knowledge to offer a specific 
opinion at this time; however, determining substantial savings will 
likely require consideration on a case by case basis. I believe that 
consideration should include the potential trade-off between cost 
savings and reductions in acquisition and budget flexibilities.
    Question. Under what circumstances, if any, do you believe that a 
multi-year contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multi-year procurement statute, 10 
U.S.C. Sec.  2306b?
    Answer. I believe it is likely that the employment of multi-year 
strategies should be evaluated on a case-by-case basis. If confirmed, I 
would consider all relevant factors, including past program 
performance, in deliberations on possible employment of multi-year 
procurement strategies.
    Question. How would you analyze and evaluate proposals for multi-
year procurement for such programs?
    Answer. If confirmed, I would ensure that proposals for multi-year 
procurement would be carefully and fairly assessed, with consideration 
of the original savings projections for historical programs, and 
compared with acquisition strategies that do not employ multi-year 
procurement. I would also ensure that multi-year savings projections 
are compared with actual savings achieved from historical programs.
    Question. If confirmed, what criteria would you apply in assessing 
whether procuring such a system under a multi-year contract, is 
appropriate and should be proposed to Congress?
    Answer. Although I do not have sufficient knowledge to recommend 
specific criteria at this time, some criteria to consider include a 
review of all statutory and regulatory requirements and, potentially, 
an assessment of the trade-offs between cost savings and reductions in 
acquisition and budget flexibilities.
    Question. Under what circumstances, if any, should DOD ever break a 
multi-year procurement?
    Answer. I believe that the extraordinary circumstances that would 
lead to the break in a multi-year procurement should be carefully 
considered on a case-by-case basis. Some factors to consider could 
include a dramatic change in the national security situation, a change 
in the fiscal environment facing DOD, or a significant change in the 
acquisition program itself.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. If confirmed, I would take actions to ensure that 
independent cost estimates developed or approved by the D/CAPE are 
fully funded in the Future Years Defense Program, that changes to 
programs and cost estimates are properly tracked over time, that 
program cost performance is tracked consistent with the metrics 
specified in WSARA, and that proposed changes to programs that 
influence costs are fully evaluated and considered prior to 
implementation of changes to programs.
    If confirmed, I would also recommend a careful examination of the 
Operations and Support costs for the Department. These accounts 
sometimes contribute to instability in acquisition programs by 
demanding a greater percentage of available resources than originally 
expected, thereby undermining acquisition plans. Realistically funding 
these accounts, and controlling cost growth where possible, may help 
stabilize mid- and long-term acquisition plans.
                            cost assessment
    Question. Section 2334 of title 10, U.S.C., requires the D/CAPE to 
prescribe policies and procedures for the conduct of cost estimation 
and cost analysis for the acquisition programs of DOD.
    What are the major issues that you believe should be addressed in 
policies and procedures for the conduct of cost estimation and cost 
analysis for DOD acquisition programs?
    Answer. I do not have enough detailed information to make an 
assessment. If confirmed, I would evaluate the current policies and 
procedures for the conduct of cost estimation and cost analysis for DOD 
acquisition programs and recommend adjustments, if needed.
    Question. What is your view on DOD policies and procedures 
currently in place for the conduct of cost estimation and cost analysis 
for DOD acquisition programs? Are there any significant gaps that you 
would like to fill or significant changes that you would like to make?
    Answer. I do not have enough detailed information to make an 
assessment. If confirmed, I would evaluate the current policies and 
procedures for the conduct of cost estimation and cost analysis for DOD 
acquisition programs and recommend adjustments, if needed.
    Question. Section 2334(a)(6) requires the Director to conduct 
independent cost estimates and cost analyses for certain major defense 
acquisition programs and major automated information system programs at 
key points in the acquisition process and ``at any other time 
considered appropriate by the Director or upon the request of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics.''
    In your view, does the office of the Director currently have the 
staffing and resources necessary to perform this function, or will 
additional resources be required?
    Answer. I believe that in order to fully comply with the statutory 
requirements of WSARA significant additional staffing and resources 
will be needed, beyond those that had previously been provided to the 
Cost Analysis Improvement Group. If confirmed, I would move rapidly to 
develop, mature, and execute early transition and strategic plans so 
that CAPE will help the Department realize the program performance 
goals established by the President and Congress.
    Question. What is your view of the extent to which it would be 
appropriate to use Federally Funded Research and Development Centers 
(FFRDCs) or other contractors to assist in this function?
    Answer. It is my understanding that the Department has underway a 
major initiative to reestablish the Government acquisition workforce. 
Even with this trend, however, there are numerous functions, such as 
cost analysis research, that an FFRDC or a support contractor could 
provide to assist the Department in meeting its cost estimating 
requirements.
    Question. Are there particular points in the acquisition process, 
other than those required by statute, at which you think that 
independent cost estimates and cost analyses would be appropriate?
    Answer. The current acquisition process in the Department is event-
driven and episodic in nature, and is driven primarily by the key 
milestones identified in statute. In my view, the new WSARA 
requirements will drive the Department to a model involving more 
continuous involvement of the cost analysis community. If confirmed, I 
would support a more continuous involvement of CAPE in following and 
tracking program performance, updating previous cost and schedule 
estimates, and in evaluating new program risks as they are identified.
    Question. The Director is required to ``[r]eview all cost estimates 
and cost analyses'' conducted by the military departments and defense 
agencies for major defense acquisition programs and major automated 
information system programs other than those covered by section 
2334(a)(6). At certain points in the acquisition process, the Director 
is required to determine whether such estimates are reasonable.
    In your view, does the office of the Director currently have the 
staffing and resources necessary to perform this function, or will 
additional resources be required?
    Answer. No. I believe that in order to fully comply with the 
statutory requirements of WSARA significant additional staffing and 
resources will be needed, beyond those that had previously been 
provided to the Cost Analysis Improvement Group. If confirmed, I would 
move rapidly to develop, mature, and execute early transition and 
strategic plans so that CAPE will help the Department realize the 
aggressive program performance goals established by the President and 
Congress.
    Question. What is your view of the extent to which it would be 
appropriate to use FFRDCs or other contractors to assist in this 
function?
    Answer. The cost estimating community is currently involved in the 
DOD insourcing initiative since many of the functions performed in this 
community are inherently governmental in nature. Even with this trend, 
however, there are numerous functions, such as cost analysis research, 
that an FFRDC or a support contractor could provide to assist the 
Department in meeting its cost estimating requirements.
    Question. What action would you expect to take, if confirmed, if 
you were to determine that a cost estimate or cost analysis conducted 
by one of the military departments or defense agencies in connection 
with a major defense acquisition program or major automated system 
program was not reasonable?
    Answer. If confirmed, in this situation I would direct the Deputy 
Director for Cost Assessments in CAPE to prepare a separate independent 
cost estimate. I would recommend that the program not be permitted to 
proceed until the new independent cost estimate was completed, 
considered, and properly funded in the Future Years Defense Program.
    Question. Section 2334(a) also requires the Director to issue 
guidance relating to the proper selection of confidence levels in cost 
estimates for major defense acquisition programs and major automated 
information system programs. Section 2334(d) requires the Director (and 
the head of the agency responsible for the estimate) to disclose the 
confidence level for the estimate, the rationale for selecting the 
confidence level, and ``if such confidence level is less than 80 
percent, the justification for selecting a confidence level of less 
than 80 percent.''
    Do you support the disclosure requirement in section 2334(d)?
    Answer. Yes.
    Question. What is your view of the appropriate confidence level for 
a cost estimate for a major defense acquisition program or major 
automated information system program?
    Answer. If confirmed, I would ensure that a complete discussion of 
program risk, its assessment and quantification, and the extent to 
which risk mitigation measures are funded, would be a part of the 
preparation and documentation of every independent cost estimate 
conducted or overseen by CAPE. I believe that the confidence level or 
degree to which funding is provided to cover risks, both known and 
unknown, is best established on a case-by-case basis, in the context of 
the overall Departmental priorities and risk posture.
    Question. In your view, should the confidence level vary, depending 
on the stage of the acquisition process that the program has reached?
    Answer. Yes.
    Question. What do you see as the possible consequences of selecting 
an inappropriate confidence level of a cost estimate?
    Answer. The consequences of selecting an inappropriate confidence 
level for a cost estimate depend on many factors, including the size of 
the program, the extent to which the specific program has already 
experienced cost growth, and the performance of other programs in the 
larger DOD acquisition portfolio. The consequences could range from 
having a significant effect on many programs within the larger DOD 
acquisition portfolio, as resources are moved to pay for large cost 
overruns, to having a relatively small effect on a single acquisition 
program.
    Question. Do you see the need for any change in the legislation 
regarding confidence levels for estimates?
    Answer. I have no recommended changes at this time. If confirmed, I 
would evaluate the current statutory requirements, policies, and 
procedures for the development and setting of confidence levels for DOD 
acquisition programs and recommend adjustments, if needed.
                           program evaluation
    Question. Section 139c(d)(5) of title 10, U.S.C., makes the D/CAPE 
responsible for ``[r]eview, analysis, and evaluation of programs for 
executing approved strategies and policies, ensuring that information 
on programs is presented accurately and completely.'' Section 
139c(d)(7) makes the Director responsible for ``[a]ssessments of 
alternative plans, programs, and policies with respect to the 
acquisition programs of the Department of Defense.''
    What is your view of the significance of independent review, 
analysis, and evaluation of programs, and assessments of alternative 
programs, to the effective management of DOD?
    Answer. Independent analyses and evaluation of programs help 
identify underlying risk in programs--whether cost, schedule or 
performance risk. I believe that identifying these risks and offering 
the means to mitigate them will position the Department leadership to 
make informed decisions for acquiring and resourcing program plans.
    Question. Do you see the need for any changes or improvements to 
the organization, process, or methodology used by the Department for 
such review, analysis, and assessments?
    Answer. It is highly likely that additional staff will be needed 
along with organizational changes to fulfill the expanded CAPE 
responsibilities and fully comply with the statutory requirements of 
WSARA. I am not aware of the need to make any changes or improvements 
to the process or methodology at this time. However, if confirmed I 
would review the process and methodology and make recommendations for 
improvements, as appropriate.
    Question. Does the D/CAPE have the staffing and resources needed to 
carry out this function?
    Answer. Given the additional responsibilities spelled out in the 
WSARA law, I believe that the Director may need additional staff and 
resources to carry out this function. If confirmed, I plan to focus 
immediately on organizational changes necessary to fully comply with 
the intent of the legislation and the resulting impact on resources.
    Question. How do you believe that the D/CAPE should interact with 
Service acquisition executives, program executive officers, program 
managers, and other program officials in preparing independent 
evaluations of major defense acquisition programs?
    Answer. Preparation of independent evaluations of major defense 
acquisition programs is highly dependent on gaining unfettered access 
to information about the programs. I believe that the D/CAPE must 
create strong relationships with Service acquisition executives and 
other program subordinates to ensure continued access to the 
information. At the same time, I believe that the Director must make 
clear that the analyses done by the Cost Assessment and Program 
Evaluation organization maintain the necessary independence and 
continue to be unbiased and reliable in developing recommendations 
based on the analyses.
         planning, programming, budgeting, and execution system
    Question. What role do you expect to play, if confirmed, on matters 
relating to the planning and programming phases of the Planning, 
Programming, Budgeting and Execution (PPBE) system?
    Answer. If confirmed, I expect the Secretary of Defense would 
assign me all of the duties, functions, and responsibilities currently 
specified in the Department's directives for the former position of 
Director, Program Analysis and Evaluation. Specifically I expect that I 
would be one of the Secretary's primary advisors on all program 
evaluation matters. Further, I expect that I would coordinate the 
performance of the Program Review and ensure a close working 
relationship with the Under Secretary of Defense (Comptroller) as he 
coordinates the performance of the Budget Review. I expect that I would 
analyze, evaluate, and provide alternative plans and programs for U.S. 
defense objectives and evaluate programs to ensure execution of 
approved strategies and policies. I anticipate performing critical 
reviews of requirements, capabilities, and life-cycle costs of current 
and proposed defense programs, including reviews of AOAs and to 
establish guidance for AOAs.
    Question. What role do you expect to play, if confirmed, in the 
preparation of materials and guidance for the PPBE system?
    Answer. If confirmed, I would direct preparation for overarching 
guidance for the programming phase of PPBE. I also expect that I would 
prepare and coordinate closely with the Under Secretary of Defense 
(Comptroller) in the preparation of Fiscal Guidance to the Defense 
components. Further I would expect to coordinate with the Under 
Secretary of Defense (Policy) in implementation of strategic policy 
decisions reached through processes such as the Quadrennial Defense 
Review. I expect that I would continue to prepare and deliver to 
Congress the Future Years Defense Program for DOD.
    Question. Do you see the need for any changes or improvements to 
the PPBE system?
    Answer. I do not have any recommendations at this time.
                        analyses of alternatives
    Question. The D/CAPE is responsible for the formulation of study 
guidance for AOAs for major defense acquisition programs and the 
performance of such analyses, as directed by the Secretary of Defense.
    Do you believe that DOD has been making appropriate use of AOAs in 
connection with major defense acquisition programs?
    Answer. I do not have sufficient knowledge at this time to offer an 
assessment of the Department's use of analysis of alternatives. I 
believe AOAs can identify areas where tradeoffs can be made to reduce 
cost, schedule, and performance risk.
    Question. Do you see the need for any change in the timing, 
content, or approach that the Department takes to AOAs in connection 
with major defense acquisition programs?
    Answer. No. The analysis of alternatives is usually done prior to 
Milestone A, thereby offering the earliest opportunity to influence the 
acquisition strategy and program content. If confirmed, I would ensure 
that the analysis of alternatives continues to be updated, as 
appropriate, as the program proceeds to a full-rate production 
decision.
    Question. Do you believe that the office of the D/CAPE and other 
relevant components of the Department are appropriately organized and 
staffed to carry out effective AOAs in connection with major defense 
acquisition programs?
    Answer. Properly organized, yes. Properly staffed, no--it is highly 
likely that additional staff will be needed along with organizational 
changes to fulfill the expanded CAPE responsibilities and fully comply 
with the statutory requirements of WSARA.
                      operating and support costs
    Question. Section 2334(e) of title 10, U.S.C., requires the 
Director to review and report on existing systems and methods of DOD 
for tracking and assessing operating and support costs on major defense 
acquisition programs.
    Do you think that the Department is currently doing an adequate job 
of estimating operating and support costs for major defense acquisition 
programs?
    Answer. I appreciate the challenges of estimating operating and 
support costs of increasingly complex weapon systems with ever-changing 
operational missions. The WSARA of 2009 requires a review of systems 
and methods used for developing estimates of operating and support 
costs. I am advised that a team led by the Cost Assessment and Program 
Evaluation directorate is examining the adequacy of systems and methods 
used for developing estimates of these costs. If confirmed, I would 
review the study team's finding and conclusions and recommend 
adjustments, if needed.
    Question. Do you think that the Department is currently doing an 
adequate job of tracking and assessing operating and support costs for 
major defense acquisition programs?
    Answer. I recognize that effective systems and methods must be in 
place to ensure that budgets and programs reflect the most current 
experience in operating and support costs. The WSARA of 2009 requires a 
review of systems and methods used for tracking and assessing operating 
and support costs. I am advised that a team led by the Cost Assessment 
and Program Evaluation directorate is examining these systems and 
methods. If confirmed, I would review the study team's finding and 
conclusions and recommend adjustments, if needed.
    Question. What would be your view of a ``Nunn-McCurdy''-type system 
for programs that substantially exceed estimates for operating and 
support costs?
    Answer. I understand the importance of controlling the operating 
and support costs of our major weapon systems. I also know that this is 
a complicated problem--many factors contribute to increases in 
operating and support cost growth. I am advised that the Cost 
Assessment and Program Evaluation directorate has begun assessing the 
feasibility and advisability of establishing some form of baseline for 
operating and support costs, as required in the WSARA of 2009. If 
confirmed, I would make a review of the team's progress on this 
question a near-term priority.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and  necessary  security  
protection,  with  respect  to  your  responsibilities  as  the  D/
CAPE?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                              new position
    1. Senator Burris. Ms. Fox, how would you define success as the 
first person to fill this position?
    Ms. Fox. The Weapon System Acquisition Reform Act (WSARA) of 2009 
is intended to bring cost growth under control and to reform defense 
acquisition processes so that equipment is provided to U.S. forces in a 
timely manner. I would view success as making a positive contribution 
to those goals. The additional requirements and responsibilities 
assigned to the new Cost Assessment and Program Evaluation (CAPE) 
organization, and the need to tailor CAPE to meet those requirements, 
will also be a tremendous challenge. If I can leave CAPE in a strong 
position to achieve the goals of WSARA, I would consider that a 
success.

    2. Senator Burris. Ms. Fox, do you feel that this position is an 
oversight arm for the Under Secretary of Defense (Comptroller) and the 
Services Comptrollers?
    Ms. Fox. I plan to work closely with the Under Secretary of Defense 
(Comptroller) to ensure that the processes the Department uses to 
develop its budget plans and build the Future Years Defense Program are 
carefully integrated. I also plan to work with the Department of 
Defense (DOD) and Service Comptrollers to ensure that the information 
provided to Congress in the budget, in the Future Years Defense 
Program, and in reports on acquisition programs is accurate and 
internally consistent.

    3. Senator Burris. Ms. Fox, do you plan to work to implement a DOD 
standard for determining cost estimates, assessments, and requirements?
    Ms. Fox. The WSARA establishes the Director of Cost Assessment and 
Program Evaluation as the primary advocate for the DOD cost community. 
I plan to evaluate the policies and procedures the Department currently 
uses in developing cost estimates and preparing cost analyses for 
acquisition programs, and I will recommend adjustments, if needed. I 
will also work to ensure that appropriate guidance is provided for cost 
assessment and cost-estimating functions department-wide and that these 
functions are given the resources and authorities necessary to improve 
the performance of DOD programs.

                          acquisition process
    4. Senator Burris. Ms. Fox, does the acquisition process need to be 
overhauled DOD-wide?
    Ms. Fox. The acquisition process for major defense programs will 
require modification to fully implement the statutory requirements 
established by the WSARA. I plan to work closely with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics to 
ensure that any modifications to the Department's acquisition 
regulations are consistent with statutory requirements and the goals of 
WSARA.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                        fixed-price contracting
    5. Senator McCain. Ms. Fox, we in this committee and DOD have 
pursued initiatives designed to reduce development and technological 
risks associated with major weapons programs so as to maximize the use 
of fixed price-type contracts. What do you think about the feasibility 
of greater use of fixed price contracts, and how would you evaluate the 
Department's commitment or ability to move towards use of more fixed 
price-type contracts (and less cost-reimbursable contracts) to buy 
major weapons systems?
    Ms. Fox. I believe that the use of fixed-price contracts is 
appropriate in the later stages of major weapons programs that involve 
both development and production activities. I believe that the specific 
point at which to make the transition from cost-type to fixed-price 
contract vehicles is best determined on a case-by-case basis. The 
criteria that the Department currently considers in establishing the 
transition point include the military requirements for the program in 
question, the technical definition of the program, the design stability 
of the end-items to be procured, the availability of information on 
actual costs, and the overall risk posture and priorities associated 
with the program. These seem reasonable to me at this time. There are 
cases, however, when a fixed-price contract would make sense for the 
entire program. An example would be a program that entails no or 
minimal development activities--such as acquisition efforts involving 
procurement of off-the-shelf items.

  authorities under the weapons systems acquisition reform act of 2009
    6. Senator McCain. Ms. Fox, you bring a wealth of analytical and 
research management experience to this new position, and we went to 
great lengths to ensure that you have the independence, resources, and 
access needed to provide the advice and information that Secretary 
Gates, Under Secretary Carter, and all the participants in DOD 
procurement and acquisition require to succeed. What do you consider to 
be the most important aspects and legal authorities of this new 
position?
    Ms. Fox. The WSARA legislation makes clear that the CAPE director 
is responsible for providing independent cost estimates for all major 
acquisition programs and for ensuring that program cost and schedule 
estimates are properly prepared and considered in the Department's 
deliberations on major acquisition programs. The legislation further 
authorizes the CAPE director to provide guidance and oversight of 
Analyses of Alternative. Through this authority, the CAPE director can 
ensure that the full range of program and non-materiel solutions is 
considered in acquisition decisions. These two authorities together are 
critical to the CAPE director's ability to achieve the goals of WSARA.

    7. Senator McCain. Ms. Fox, if confirmed, what resources or 
additional authorities do you think you may require?
    Ms. Fox. The WSARA of 2009 is intended to reform defense 
acquisition processes and to bring cost growth under control. The 
additional requirements and responsibilities assigned to the new CAPE 
organization, and the need to tailor CAPE to meet those requirements, 
will be a tremendous challenge. The size, shape, and organization of 
the CAPE workforce must be reviewed in detail, and the new organization 
must be tailored to satisfy the law and to continue providing the 
Secretary of Defense with the analytic support that he needs.

                            cost estimating
    8. Senator McCain. Ms. Fox, if confirmed as the Director of Cost 
Assessment and Program Evaluation, you will be called on to testify 
before Congress on your independent cost estimates and analyses of 
major weapons programs. What cost estimate information do you think it 
is important for Congress to have when considering funding for major 
defense acquisition programs? For example, should Congress be looking 
at a point estimate or a range estimate?
    Ms. Fox. In support of funding decisions in the authorization and 
appropriation processes, Congress needs accurate and complete 
information regarding the cost estimates that form the basis for the 
President's budget request, the Future Years Defense Program, and the 
Selected Acquisition Reports submitted for major weapon programs. 
Understanding the risks associated with a program's cost estimate is 
critically important in that regard. For example, in many instances the 
unit cost of a weapon system is influenced to a large degree by the 
number of items procured in each year of the program. Providing 
information of this sort to decisionmakers in DOD and Congress should 
result in more balanced and informed decisions in both the executive 
and legislative branches of Government.

    9. Senator McCain. Ms. Fox, in your view, is it sufficient to know 
the confidence level of a cost estimate or do we need to know the major 
cost risk drivers of a program?
    Ms. Fox. I plan to ensure that a complete discussion of program 
risk, its assessment and quantification, and the extent to which risk-
mitigation measures are funded is part of the preparation and 
documentation of every independent cost estimate produced or overseen 
by CAPE. I believe that the confidence level, or the degree to which 
funding is provided to cover risks, both known and unknown, is best 
established on a case-by-case basis, in the context of the Department's 
overall priorities and risk posture.

    10. Senator McCain. Ms. Fox, what, if anything, would you do to 
help us get a good understanding of the cost risk drivers?
    Ms. Fox. I plan to ensure that every independent cost estimate 
produced or overseen by CAPE includes a complete discussion of program 
risk, its assessment and quantification, and the extent to which risk 
mitigation measures have been funded in the program's budget. Toward 
that end, I hope to strengthen the discussion of cost risks in the 
budgetary and acquisition materials that the Department provides to 
Congress for major defense programs

    11. Senator McCain. Ms. Fox, do you believe that major defense 
acquisition programs should be budgeted to an independent cost 
estimate?
    Ms. Fox. Yes, I believe that the budget requests for major defense 
acquisition programs should generally be consistent with resource 
requirement projections from independent cost estimates.

    12. Senator McCain. Ms. Fox, independent cost estimating aside, do 
you believe that major defense acquisition programs should be budgeted 
to a specific confidence level?
    Ms. Fox. I believe that the confidence level, or the degree to 
which funding is provided to cover risks, both known and unknown, is 
best established on a case-by-case basis, in the context of the 
Department's overall priorities and risk posture. For example, in the 
early development phases of a program, when more than one materiel 
solution is under consideration, it might be appropriate to base the 
initial budget requests on the higher-cost solution. Such an approach 
would provide high confidence that the best solution for the Department 
can be pursued within programmed resources over the longer term.

    13. Senator McCain. Ms. Fox, should DOD budget for certain high 
risk programs, such as those that involve significant leaps in 
technology, at a higher confidence level?
    Ms. Fox. I believe that the confidence level, or the degree to 
which funding is provided to cover risks, both known and unknown, is 
best established on a case-by-case basis, in the context of the 
Department's overall priorities and risk posture. In certain situations 
involving high-priority missions and high-risk programs, it may be 
necessary to establish budgets at higher confidence levels for the 
programs.

    14. Senator McCain. Ms. Fox, in a number of programs, such as the 
CVN-78 and DDG-1000, DOD relies on new production or design 
efficiencies to generate cost savings. But, the Government 
Accountability Office has found that ``labor hour savings based on 
efficiencies often did not materialize as expected.'' When developing a 
cost estimate, to what extent would you consider new manufacturing or 
design processes as generating cost savings?
    Ms. Fox. The cost estimates prepared in CAPE are based on actual 
costs reported by defense contractors and DOD components for current 
and historical defense programs. The database of actual costs for 
previous defense programs is maintained by the Defense Cost and 
Resource Center within CAPE and is available to all Government 
personnel in DOD. When a cost estimate is developed by CAPE, it 
reflects cost savings associated with new manufacturing or design 
processes only to the degree to which those savings have been proven 
and realized and are reflected in the actual cost reports for DOD 
programs.

    15. Senator McCain. Ms. Fox, to what extent are you concerned that 
operations and support costs are not taken into sufficient account when 
key procurement decisions are made on a major weapons systems 
throughout its acquisition cycle?
    Ms. Fox. It is important that operations and support costs be 
considered in decisions involving the acquisition of long-term capital 
assets in DOD. I appreciate the challenges of estimating operating and 
support costs of increasingly complex weapon systems with frequently 
changing operational missions. The WSARA of 2009 requires a review of 
systems and methods used for developing estimates of operating and 
support costs. A team led by the Cost Assessment and Program Evaluation 
directorate is examining the adequacy of systems and methods used for 
developing estimates of these costs. I plan to review the study team's 
finding and conclusions and will recommend adjustments to the 
procedures the Department uses to estimate operations and support 
costs, if needed.
                                 ______
                                 
    [The nomination reference of Christine H. Fox follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   October 1, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Christine H. Fox, of Virginia, to be Director of Cost Assessment 
and Program Evaluation, Department of Defense (New Position).
                                 ______
                                 
    [The biographical sketch of Christine H. Fox, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                  Biographical Sketch of Christine Fox
                               education
    Garfield High School, May 1972, H.S. Diploma
    BS, Mathematics, George Mason University, May 1976
    MS, Applied mathematics, George Mason University, August 1980
                           employment record
Center for Naval Analyses:
    May 2004-Present: President
    2001-2004: Vice President and Director, Operations Evaluation Group
    1994-2001: Team Leader, Operational Policy Team
    1992-1994: Director, Antiair Warfare Department
    1989-1992: Program Director, Fleet Tactics and Capabilities
    1987-1989: Team Leader, Third Fleet Tactical Analysis Team
    1986-1987: Field Representative, Tactical Training Group, Pacific
    1985-1986: Project Director, Electronic Warfare
    1983-1985: Field Representative, Fighter Airborne Early Warning 
Wing, Pacific
    1981-1983: Analyst, Air Warfare Division
Institute for Defense Analyses:
    1979-1981: Member, Computer Group
                           honors and awards
    Outstanding Alumna of the Year; George Mason University, College of 
Science; March 2008
    NASA Public Service Medal; Return to Flight Task Force; August 2005
    The CNA Corporation Board of Trustees Distinguished Service Award; 
April 2004
    International Women's Year Award; Contribution to Aerospace/
Aviation; 1995
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Christine H. 
Fox in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Christine H. Fox.

    2. Position to which nominated:
    Director, Cost Analysis and Program Evaluation (CAPE).

    3. Date of nomination:
    October 1, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 26, 1955; Bethesda, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Alan C. Brown.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Mason University, August 1972 to May 1976, BS in 
Mathematics, May 1976
    George Mason University, August 1976 to August 1980, MS in Applied 
Sciences, August 1980

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    CNA, July 1981-present
      Current title: President, Center for Naval Analyses; May 2004-
present
      Previous title: Vice President, Operations Evaluation Group, 
2001-2004
      Previous title: Team Leader, Operational Policy Team, 1994-2001

    Adjunct professor at Syracuse University, National Security 
Studies, periodically beginning April 1996 through November 2000.
    Part-time consultant to George Washington University from December 
1998 to April 1999.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    NASA, Return to Flight Task Force, December 2003-March 2005.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Advisory Board, Applied Physics Laboratory, University of 
Washington (unpaid position).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Council on Foreign Relations, June 2009-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    My husband and I have consistently made small donations to the 
Democratic National Committee (DNC). We do not have records. We believe 
they were always about $50 and totaled approximately $100/year. We have 
requested a record from the DNC but have not received it.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Outstanding Alumna of the Year; George Mason University, College of 
Science; March 2008.
    NASA Public Service Medal; Return to Flight Task Force; August 
2005.
    The CNA Corporation Board of Trustees Distinguished Service Award; 
April 2004.
    International Women's Year Award; Contribution to Aerospace/
Aviation; 1995.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [The nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No formal speeches.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Christine H. Fox.
    This 7th day of October, 2009.

    [The nomination of Christine H. Fox was reported to the 
Senate by Chairman Levin on October 27, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2009.]
                              ----------                              

    [Prepared questions submitted to Frank Kendall III by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Currently, I see no specific changes in the Act that I 
would recommend.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                                 duties
    Question. Section 133a of title 10, U.S.C., describes the role of 
the Deputy Under Secretary of Defense for Acquisition and Technology 
(DUSD(AT)).
    Assuming you are confirmed, what duties do you expect that the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
USD(AT&L) will prescribe for you?
    Answer. If confirmed, my statutory responsibilities under section 
1333a of title 10 would be to be the principal advisor to the USD(AT&L) 
and the Secretary of Defense for matters relating to acquisition and 
the integration and protection of technology. Dr. Carter and I have 
discussed my role in the USD(AT&L) organization, and if confirmed I 
will also be acting as his principle deputy. The model that we have 
discussed is that of a Chief Executive Officer and Chief Operating 
Officer with me in the Chief Operating Officer role under Dr. Carter's 
supervision.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 35 years experience in the areas of national 
security, defense, and acquisition. My education includes degrees in 
engineering, business, and law. I served on Active Duty in the Army for 
over 10 years including in operational units and research and 
development commands. As a civil servant I worked as a systems engineer 
and systems analyst. I spent over 8 years in the Pentagon on the Under 
Secretary for Acquisition's staff first as Assistant Deputy Under 
Secretary for Strategic Systems (Defense Systems) and then as Director, 
Tactical Warfare Programs. Outside of Government, I have been the Vice 
President of Engineering for Raytheon Company and a consultant on 
national security and acquisition related matters, principally program 
management, technology assessment, and strategic planning, for a 
variety of defense companies, think tanks, and Government laboratories 
or research and development organizations.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. No.
    Question. Do you believe that any significant changes should be 
made in the structure and decisionmaking procedures of the Department 
of Defense (DOD) with respect to acquisition matters?
    Answer. I am not aware of any changes that need to be made at this 
time. The Weapons System Acquisition Reform Act of 2009 addressed this 
question and I understand that it is currently being implemented. If 
confirmed, I intend to keep an open mind, assess historical changes, 
and work within DOD and with Congress in an open and transparent manner 
on any recommendations concerning the structure or decisionmaking 
procedures for acquisition.
                             qualifications
    Question. If confirmed, you will be responsible for assisting the 
Under Secretary in the management of an acquisition system pursuant to 
which DOD spends almost $400 billion each year.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. As indicated above, I have over 35 years experience in the 
areas of national security, defense, and acquisition. My education 
includes degrees in engineering, business, and law. I served on Active 
Duty in the Army for over 10 years including in operational units and 
research and development commands. As a civil servant I worked as a 
systems engineer and systems analyst. I spent over 8 years in the 
Pentagon on the Under Secretary for Acquisition's staff first as 
Assistant Deputy Under Secretary for Strategic Systems (Defense 
Systems) and then as Director, Tactical Warfare Programs. Outside of 
Government, I have been the Vice President of Engineering for Raytheon 
Company and a consultant on national security and acquisition related 
matters, principally program management, technology assessment, and 
strategic planning, for a variety of defense companies, think tanks, 
and Government laboratories or research and development organizations.
    Question. What background or experience, if any, do you have in the 
acquisition of major weapon systems?
    Answer. My most extensive experience was in my previous positions 
in the Under Secretary of Defense for Acquisition's office from 1986 to 
1994. During this period I had oversight responsibility, first for all 
strategic defense programs, and then for all tactical warfare programs. 
During my period as Director of Tactical Warfare Programs from 1989 to 
1994, I chaired the Conventional Systems Committee, now called the 
Overarching Integrated Product Team, which was responsible for 
preparing for Defense Acquisition Board (DAB) decisions for the Under 
Secretary for Acquisition. In this capacity I was responsible to the 
Under Secretary for approximately 100 DAB reviews covering systems from 
all three military departments that spanned the spectrum of major 
weapon systems. After I left Government service in 1994, I was involved 
with a number of major weapons systems programs in my capacity as Vice 
President of Engineering at Raytheon. As an independent consultant I 
spent several years providing technical management and program 
management consulting to the Lead System Integrator for the Future 
Combat Systems program. During the period 1997 to 2008 I was also 
involved in reviews of a number of major acquisition programs, either 
as an independent consultant or as a member of a Government advisory 
board.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I would support the Secretary of Defense's 
priorities in acquisition and technology.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would support the Deputy Secretary's 
priorities in matters of acquisition and technology.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics would be my immediate supervisor. If confirmed, I would 
be the principal advisor to the USD (AT&L) for matters relating to 
acquisition and the integration and protection of technology. In 
addition I would assist the USD(AT&L) in the performance of his duties 
relating to Acquisition and Technology and in any other capacity that 
he might direct.
    Question. The other Under Secretaries of Defense.
    Answer. There are many actions that require coordination among the 
offices of the Under Secretaries of Defense. If confirmed, I would 
support the USD(AT&L) in working with the other Under Secretaries of 
Defense to best serve the priorities of DOD.
    Question. The Deputy Chief Management Officer of DOD.
    Answer. If confirmed, I would work with the Deputy Chief Management 
Officer to support the effective and efficient organization of business 
operations throughout DOD.
    Question. The Assistant Secretaries of Defense.
    Answer. If confirmed, I would work with the USD(AT&L) to cooperate 
with the Assistant Secretaries of Defense to best equip the Services 
and implement DOD priorities.
    Question. The DOD General Counsel.
    Answer. If confirmed, I would work with the General Counsel's 
office to ensure all actions are legal, ethical, and within regulatory 
guidelines.
    Question. The Director of Operational Test and Evaluation (DOT&E).
    Answer. If confirmed, I would work with the DOT&E to ensure 
appropriate testing oversight for DOD acquisition programs.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I would work with the Director of Cost 
Assessment and Program Evaluation to support their efforts to provide 
DOD with independent analysis and resourcing assessments for weapons 
systems programs.
    Question. The Director of Defense Research and Engineering (DDR&E).
    Answer. If confirmed, I would work with the DDR&E to rapidly field 
technologies and capabilities to support ongoing operations, and to 
ensure the Department and the Nation maintain a strong technical and 
engineering foundation to reduce the cost, acquisition time, and risk 
of our major defense acquisition programs.
    Question. The Director of Developmental Testing.
    Answer. If confirmed, I would work with the Director of 
Developmental Testing to ensure that there is strong involvement early 
in program formulation, and that comprehensive, independent 
developmental testing assessments of program maturity and performance 
are available to inform acquisition decisions.
    Question. The Director of System Engineering.
    Answer. If confirmed, I would rely on the expertise and advice of 
the Director, Systems Engineering, encourage early involvement in 
supporting acquisition programs, and consider his independent 
assessments and recommendations in decisions pertaining to Major 
Defense Acquisition Programs.
    Question. The Acquisition Executives in the Military Departments.
    Answer. If confirmed, I would make communication and coordination 
with Service Acquisition Executives a top priority in daily management. 
I would engage with the Acquisition Executives to ensure effective 
oversight of acquisition programs in their areas, support transparency 
in sharing information about program status, take appropriate remedial 
actions to rectify problems, actively engage in departmental processes 
to improve acquisition outcomes, and support the policies and practices 
of the Department. I would also expect them to champion best practices 
and share ideas and concerns with each other, with me, and members of 
my organization.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I would support the Vice Chairman in general, 
but particularly in his role as a member of the DAB. I would also seek 
to ensure the requirements and acquisition processes work more 
effectively together in terms of stabilizing requirements, and ensuring 
requirements established for acquisition programs are achievable within 
appropriate cost, schedule, and technical risk.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the DUSD(AT)?
    Answer. If confirmed, I believe there are a number of daunting 
challenges that will have to be confronted and it would be impossible 
to list them all. The highest priority challenge would be supporting 
the war effort through rapid acquisition and delivery of effective 
capabilities to our forces engaged in combat and other 
counterinsurgency or counter-terror operations. Next, I anticipate a 
major challenge in ensuring that the Department's acquisition programs 
are executed within cost, schedule, and performance goals. I understand 
that many programs are falling short in this area and I would work to 
regain control of existing programs and to ensure that new programs do 
not repeat these problems. There is a challenge and opportunity in 
growing both the size and capability of the acquisition workforce 
particularly in the areas of program management, engineering, 
contracting, and cost estimating. I also believe there is a need to 
improve the efficiency and effectiveness of the transition of 
technologies from the science and technology (S&T) community into 
acquisition programs. Finally, maintaining the strength and resiliency 
of our national defense industrial base is a challenge that I 
anticipate will require attention.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would use my experience to leverage the 
resources and expertise of the Defense Department, industry and other 
organizations to address these issues.
    Question. What do you consider to be the most serious problems in 
the management of acquisition functions in DOD?
    Answer. I believe the top issues are effective and transparent 
oversight of our major programs to identify and rectify problems early; 
establishing acquisition programs that appropriately balance cost, 
schedule, performance, and risk; restricting unrealistic or 
unaffordable requirements appetites; strengthening both the acquisition 
workforce and our industrial base; and efficiently utilizing our 
investments in S&T.
    Question. What management actions and timetables would you 
establish to address these problems?
    Answer. I am not familiar enough with the position and the current 
situation to propose any actions or timetables at this time.
                        acquisition organization
    Question. Section 906 of the National Defense Authorization Act for 
Fiscal Year 2010 would realign the Deputy Under Secretaries (DUSDs) 
within the office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(ATL)).
    What is your view of the changes made by section 906? Do you see 
the need for any changes to this legislation?
    Answer. I do not know what the impact of these changes would be in 
practice; however, I do not see the need for any changes at this time.
    Question. Do you believe that the office of the USD(ATL) is 
appropriately structured to execute its management and oversight 
responsibilities?
    Answer. Yes.
    Question. Do you believe that any change is needed in the duties 
and responsibilities of the DUSDs serving under the USD(ATL)?
    Answer. I have not had an opportunity to review those 
responsibilities and do not have any recommended changes at this time.
    Question. What role do you expect to play, if confirmed, in the 
realignment of the responsibilities of the DUSDs in accordance with the 
requirements of section 906?
    Answer. If confirmed, I would expect to advise the Secretary of 
Defense, the Deputy Secretary of Defense, and the USD(AT&L) on the 
enacted requirements.
    Question. Do you see the need for any changes in the relationship 
between the USD(ATL) and senior acquisition officials in the military 
departments?
    Answer. Not at this time.
    Question. Do you see the need for any additional processes or 
mechanisms to ensure coordination between the budget, acquisition, and 
requirements systems of DOD and ensure that appropriate trade-offs are 
made between cost, schedule, and performance requirements early in the 
acquisition process?
    Answer. I am not familiar enough with current procedures to make a 
recommendation at this time. If confirmed, I would examine these issues 
and recommend appropriate changes if I perceived that any were 
necessary. My experience is that there is an unavoidable overlap 
between budget, acquisition, and requirements procedures that is best 
addressed by continuous cooperation and coordination among the 
individuals with responsibilities for those processes.
    Question. What do you believe should be the appropriate role of the 
Service Chiefs in the requirements, acquisition, and resource-
allocation process?
    Answer. The Service Chiefs have a key role to play in the 
development of capability needs and in the planning and allocation of 
resources consistent with those needs. Although Service Chiefs do not 
play a formal role in the acquisition chain of command, if confirmed I 
would respect, encourage, solicit, and certainly welcome their advice 
and inputs.
    Question. What do you believe should be the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. Combatant commanders advise on capability needs, 
priorities, and allocation of resources consistent with those needs. I 
am particularly sensitive to the need for the acquisition system to 
address urgent needs of the combatant commanders in support of wartime 
operations. If confirmed, I would respect and encourage their advice 
and solicit their input on meeting their needs effectively.
    Question. Do you see the need for any changes in the structure or 
operations of the Joint Requirements Oversight Council (JROC)?
    Answer. I am not familiar enough with current procedures with 
regard to the JROC to recommend any changes at this time.
                    major weapon system acquisition
    Question. The investment budget for weapon systems has grown 
substantially over the past few years to more than $150 billion per 
year. An increasing share of this investment is being allocated to a 
few very large systems such as the Joint Strike Fighter, Future Combat 
Systems, and Missile Defense.
    Do you believe that the current investment budget for major systems 
is affordable given increasing historic cost growth in major systems, 
costs of current operations, projected increases in end strength, and 
asset recapitalization?
    Answer. I believe the investment budget will come under increasing 
pressure in the future. If confirmed, I would work to control both the 
growth in costs of existing programs, as well as seek to ensure the 
Department has a sustainable and affordable investment strategy for the 
longer term.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed I would make this issue a top priority. Both 
the budget process and the acquisition process for individual programs 
provide vehicles to address this problem. I would advise the USD(AT&L) 
in his role in both of these processes and other Department leadership 
as appropriate to address this issue.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. There could be impacts on short- and long-term national 
security, sustainment of the existing force structure, the health of 
the industrial base, and international implications. Each program 
decision would have to be considered both individually and collectively 
to determine the impact.
    Question. Nearly half of DOD's 95 largest acquisition programs have 
exceeded the so-called ``Nunn-McCurdy'' cost growth standards 
established in section 2433 of title 10, U.S.C., to identify seriously 
troubled programs. Section 206 of the Weapon Systems Acquisition Reform 
Act of 2009 tightened the standards for addressing such programs.
    What steps if any would you take, if confirmed, to address the out-
of-control cost growth on DOD's major defense acquisition programs?
    Answer. If confirmed, I would review the portfolio of programs to 
assess the degree to which they may still have cost problems and 
propose appropriate measures on a case by case basis to address those 
problems. It would be my intent to ensure future programs start off on 
a sound technical and fiscal footing to reduce the risk of future 
growth in costs. Emphasis would be placed on realistic overall cost 
estimates, executable program plans, and well understood and achievable 
technical requirements. Acquisition strategies should provide strong 
incentives to successful program execution. I would also enforce 
policies and measures such as the statutory provisions recently enacted 
to discipline the system and stabilize it over time.
    Question. What steps if any do you believe that the Department 
should consider taking in the case of major defense acquisition 
programs that exceed the critical cost growth thresholds established in 
the ``Nunn-McCurdy'' provision?
    Answer. I believe the current statutory provision provides the 
authority to take appropriate measures, including major restructuring 
or termination.
    Question. Do you believe that the office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, as currently 
structured, has the organization and resources necessary to effectively 
oversee the management of these major defense acquisition programs? If 
not, how would you address this problem?
    Answer. Yes, to the best of my knowledge, however if confirmed I 
will review the organization and resources available to me to determine 
if changes are required.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. Not at this time.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. If confirmed, I would use the five criteria listed in the 
law. They address whether the capability is essential to the national 
security and whether there are other alternatives that can provide the 
capability at less cost. They also address whether we now have 
reasonable cost and schedule estimates and the management to achieve 
them. The law also requires consideration from where the funding will 
come.
    Question. In the Budget Blueprint that supports the fiscal year 
2010 Presidential budget request, the administration committed to 
``set[ting] realistic requirements and stick[ing] to them and 
incorporat[ing] `best practices' by not allowing programs to proceed 
from one stage of the acquisition cycle to the next until they have 
achieved the maturity to clearly lower the risk of cost growth and 
schedule slippage.''
    If confirmed, how would you help ensure that the Department makes 
good on this commitment?
    Answer. Advanced technology is essential to maintaining the 
operational superiority of our weapon systems, but there must be a 
balance between pursuing desirable technology goals and ensuring 
adequate maturity before committing to major development programs that 
depend on new technology. If confirmed, I would seek to ensure programs 
do not proceed unless they are ready in all respects to advance to the 
next stage in the acquisition process. This requires a detailed review 
of the specific risks associated with each program. If confirmed, I 
would work closely with the DDR&E and other appropriate offices to 
ensure that adequate reviews are conducted.
             systems engineering and developmental testing
    Question. One of the premises for the Weapon Systems Acquisition 
Reform Act of 2009 was that the best way to improve acquisition 
outcomes is to place acquisition programs on a sounder footing from the 
outset by addressing program shortcomings in the early phases of the 
acquisition process. The Defense Science Board Task Force on 
Developmental Test and Evaluation reported in May 2008 that ``the 
single most important step necessary'' to address high rates of failure 
on defense acquisition programs is ``to ensure programs are formulated 
to execute a viable systems engineering strategy from the beginning.''
    Do you believe that DOD has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. I have not had an opportunity to fully study the adequacy 
of both systems engineering and the developmental test and evaluation 
organizations in DOD and the Services. If confirmed, I would, with the 
DDR&E, review the entire acquisition organization, including Systems 
Engineering and Developmental Testing to ensure changes are implemented 
as necessary to best accomplish the mission.
    Question. If confirmed, what role do you expect to play, in working 
with the new Director of Systems Engineering and the new Director of 
Developmental Testing to address this problem?
    Answer. If confirmed, I would work closely with both directors to 
establish a clear strategy for improving the capabilities of the 
technical workforce. I would also seek their expertise and active 
involvement in programs in their early stages to ensure the best 
technical approaches are being used to reduce program risk to 
acceptable levels and to ensure that programs are ready to proceed to 
production and operational testing.
    Question. Do you believe that the Nation as a whole is producing 
enough systems engineers and designers and giving them sufficient 
experience working on engineering and design projects to ensure that 
DOD can access an experienced and technically trained systems 
engineering and design workforce? If not, what do you recommend should 
be done to address the shortfall?
    Answer. I have not had the opportunity to fully study the level of 
shortfall, if any, in the national technical workforce today. I am 
concerned that the demographics of the national security workforce will 
present a problem within the next 5 or 10 years, if not sooner. If 
confirmed, I would work within the Department to understand and to 
mitigate these issues.
                         technological maturity
    Question. Over the last several years, the Government 
Accountability Office (GAO) has prepared a series of reports for this 
Committee comparing the DOD approach to the acquisition of major 
systems with the approach taken by best performers in the private 
sector. GAO concluded that private sector programs are more successful 
than DOD programs because they consistently require that new 
technologies achieve a high level of maturity before such technologies 
may be incorporated into product development programs. Section 104 of 
the Weapon Systems Acquisition Reform Act of 2009 addresses this issue 
by tightening technological maturity requirements for major defense 
acquisition programs.
    How important is it, in your view, for the Department to mature its 
technologies with research and development (R&D) funds before these 
technologies are incorporated into product development programs?
    Answer. It is very important for acquisition programs to use mature 
technologies and to carefully manage the risk associated with new 
technology insertion. Chances of program success go down dramatically 
when the risks associated with technologies that have not been 
demonstrated adequately are accepted. One effective way to mature 
technologies is through the use of DOD R&D funds.
    Question. What steps if any would you take, if confirmed, to ensure 
that the key components and technologies to be incorporated into major 
acquisition programs meet the Department's technological maturity 
goals?
    Answer. If confirmed, I would work with the DDR&E to ensure that 
the technology risk associated with defense acquisition programs is 
properly tailored to the phases of development to avoid program 
disruption or failure. The principal tool to accomplish this goal would 
be a rigorous, independent assessment process conducted by the DDR&E. 
If confirmed, I would review current processes with the DDR&E to 
determine their adequacy.
    Question. Do you believe that the Department should make greater 
use of prototypes, including competitive prototypes, to ensure that 
acquisition programs reach an appropriate level of technological 
maturity, design maturity, and manufacturing readiness before receiving 
Milestone approval?
    Answer. Yes.
    Question. If so, what steps do you believe the Department should 
take to increase its use of such prototypes?
    Answer. I believe the Department should insist on the use of 
competitive prototyping whenever viable. If confirmed, I would strongly 
encourage the use of competitive prototyping provisions in acquisition 
strategies.
    Question. Section 2366a of title 10, U.S.C., requires the Milestone 
Decision Authority for a major defense acquisition program to certify 
that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
DOD complies with the requirements of section 2366a?
    Answer. If confirmed, I would assist the USD(AT&L) in his role as 
chair of the DAB and Milestone Decision Authority (MDA) for Acquisition 
Category (ACAT) 1 programs in fulfilling this requirement. This would 
include supporting the use of independent technology readiness 
assessments to ensure compliance with section 2366a.
    Question. What steps if any will you take to ensure that the DDR&E 
is adequately staffed and resourced to support decisionmakers in 
complying with the requirements of section 2366a?
    Answer. If confirmed, I would work with DDR&E and other members of 
the OSD and military Service staffs to evaluate the adequacy of 
resources available to meet the challenges of complying with the 
requirements of section 2366a.
    Question. Are you satisfied that technology readiness assessments 
adequately address systems integration and engineering issues which are 
the cause of many cost overruns and schedule delays in acquisition 
programs?
    Answer. I am not familiar enough with current practices to provide 
an opinion at this time. If confirmed, I would work to ensure that 
systems integration, engineering, as well as technology maturity issues 
are properly addressed and coordinated.
    Question. Do you plan to follow the recommendation of the Defense 
Science Board Task Force on the Manufacturing Technology Program and 
require program managers to make use of the Manufacturing Readiness 
Level tool on all programs?
    Answer. I believe strongly that manufacturing technology is 
important and deserving of DOD support. I also agree that manufacturing 
readiness is important to program success and should be assessed 
rigorously before programs pass into production. If confirmed, I intend 
to review the specific recommendations of the DSB report and to take 
action to strengthen the use of Manufacturing Readiness Levels, if 
needed.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Department take to 
increase accountability and discipline in the acquisition process?
    Answer. There are a great number of factors that contribute to the 
failure of programs to meet their schedule, cost and performance goals. 
As Secretary Gates has said, there is no ``silver bullet'' that will 
address all of the factors. In addition to excessive technology risk, 
failures can originate in acquisition strategies that do not properly 
motivate the Department's suppliers, unrealistic requirements, 
optimistic cost estimates and schedules, poor detailed program 
planning, poor engineering practices, and inefficient production rates, 
just to name a few. If confirmed, I would commit to examining all these 
factors both as systemic problems and in each program that comes before 
the USD(AT&L) for a decision. If confirmed, I would work tenaciously to 
minimize the frequency and the impact of all of these problems, in part 
by focusing on the individuals responsible for executing the 
Department's programs; the Program Managers and Program Executive 
Officers.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 101 of the Weapon Systems Acquisition Reform Act 
of 2009 is designed to address this problem by establishing an 
independent Director of Cost Assessment and Performance Evaluation, who 
is charged with ensuring the development of realistic and unbiased cost 
estimates to support the Department's acquisition programs.
    Do you agree with the assessment that overly optimistic cost and 
schedule estimates and unrealistic performance expectations contribute 
to the failure of major defense acquisition programs?
    Answer. Yes.
    Question. If confirmed, how do you expect to work with the Director 
of the new office to ensure that the Department's cost, schedule, and 
performance estimates are realistic?
    Answer. During my 8 years in the Under Secretary for Acquisition's 
office I worked very closely with the Cost Analysis Independent Group 
(CAIG) and relied heavily on their expertise. If confirmed, I would 
expect to work closely with CAPE and to rely on their independent 
estimates, as well as other sources of information, to ensure thorough 
and objective reviews of programs coming before the USD(AT&L) for 
acquisition decisions.
    Question. Section 201 of the Weapon Systems Acquisition Reform Act 
of 2009 seeks to address this problem by promoting early consideration 
of trade-offs among cost, schedule, and performance objectives in major 
defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget and requirements communities in DOD can help ensure more 
realistic cost, schedule, and performance expectations?
    Answer. Yes.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. I believe the key is leadership that is committed in all 
three processes to working together. If confirmed, I would work closely 
with the leaders in requirements, acquisition, and budgeting to ensure 
that our actions are coordinated and collaborative.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Department's major acquisition 
programs?
    Answer. Yes.
    Question. What risks do you see in the Department's use of 
incremental acquisition and spiral development?
    Answer. I am not familiar with the Department's record with regard 
to implementing these approaches. If confirmed, I would support the use 
of these practices where appropriate.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. I am not familiar enough with the Department's experience 
with these strategies to have an opinion as to their success or 
failure. If confirmed, I will review the results that have been 
obtained to date.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. I am not familiar enough with the Department's experience 
with these strategies to have an opinion as to whether additional steps 
to ensure the requirements, budget and testing processes are needed. If 
confirmed, I will review the results that have been obtained to date.
    Question. How should the Department ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. I am not familiar enough with the Department's experience 
with baselines for these strategies to have an opinion as to whether 
appropriate baselines are being maintained or what changes are 
necessary. If confirmed, I will review the results that have been 
obtained to date.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. Yes.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. I am not familiar enough with the current practices in the 
Department that seek to address funding and requirements stability to 
be able to make a recommendation.
                       fixed price-type contracts
    Question. Recent Congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Department should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. I do think that the Department should, when possible, 
consider the more frequent use of fixed price type contracts in 
developing or procuring major defense acquisition programs. I believe 
that fixed price contracts offer several advantages to stability, 
schedule and cost for appropriate programs. There are circumstances in 
which fixed price contracts are not appropriate, including in the 
development of entirely new designs, when contractors assume greater 
risk and are more likely to face very high losses. If confirmed, I will 
ensure acquisition contracts are designed to provide the greatest 
benefit to the warfighter and the taxpayer.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the 
Department?
    Answer. I believe there may be several issues with technology 
transition, but I have not seen any data that would confirm the root 
causes or their relative significance. If confirmed, I would work with 
the DDR&E to understand the magnitude and impact of these factors and 
to develop measures that would improve technology transition.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. Overcoming the impediments would be a priority for me. If 
confirmed, I intend to work with the DDR&E to understand this issue and 
to devise and implement further measures to overcome these impediments.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from S&T programs and other sources, including small businesses, 
venture capital funded companies, and other nontraditional defense 
contractors, into acquisition programs?
    Answer. It is very important that defense tap into these sources, 
which are some of the most innovative in the world, for technology that 
can be applied to weapons systems. I believe that R&D and acquisition 
processes and policies must make it easier for such entities to 
contribute to defense and if confirmed, I would work with the DDR&E to 
develop specific measures to achieve that goal.
    Question. Do you believe that the Department's S&T organizations 
have the ability and the resources to carry technologies to higher 
levels of maturity before handing them off to acquisition programs?
    Answer. I am not familiar enough with the current S&T programs and 
the maturity levels they are able to achieve to answer this question 
definitively.
    Question. What steps if any do you believe the Department should 
take to ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. I believe technologies that are necessary or desirable to 
meet proposed acquisition program needs should be identified early and 
that specific maturation programs should be defined and agreed to by 
the S&T and development communities and that those programs should be 
collaboratively managed. I am not aware of the extent to which this is 
currently being done. If confirmed, I would review this area to 
determine if changes are necessary.
    Question. What role do you believe Technology Readiness Levels 
(TRLs) and Manufacturing Readiness Levels (MRLs) should play in the 
Department's efforts to enhance effective technology transition and 
reduce cost and risk in acquisition programs?
    Answer. TRLs and MRLs should serve as management tools to gauge the 
maturity of technologies that might be adopted by acquisition programs 
to meet performance or cost goals or adopted to achieve desired 
production capabilities.
                          multi-year contracts
    Question. The statement of managers accompanying section 811 of the 
National Defense Authorization Act for Fiscal Year 2008 addresses the 
requirements for buying major defense systems under multi-year 
contracts as follows: ``The conferees agree that `substantial savings' 
under section 2306b(a)(1) of title 10, U.S.C., means savings that 
exceed 10 percent of the total costs of carrying out the program 
through annual contracts, except that multi-year contracts for major 
systems providing savings estimated at less than 10 percent should only 
be considered if the Department presents an exceptionally strong case 
that the proposal meets the other requirements of section 2306b(a), as 
amended. The conferees agree with a Government Accountability Office 
finding that any major system that is at the end of its production line 
is unlikely to meet these standards and therefore would be a poor 
candidate for a multi-year procurement contract.''
    What are your views on multi-year procurements? Under what 
circumstances do you believe they should be used?
    Answer. In general, I favor multi-year procurement strategies if 
they provide substantial savings and if there is a firm commitment to 
the planned procurement. I believe that multi-year procurements can 
offer substantial savings through improved economies in production 
processes, better use of industrial facilities, and a reduction in the 
administrative burden in the placement and administration of contracts. 
The potential for multi-year procurement can be a power incentive to 
suppliers to reduce cost and negotiated price but it also has the 
disadvantage of reducing the government's flexibility during the years 
the strategy is being executed. Some factors in deciding whether a 
program should be considered for multi-year procurement are: savings 
when compared to the annual contracting methods; validity and stability 
of the requirement and funding; associated technical risks; degree of 
confidence in the estimates of both contract costs and anticipated 
savings; and promotion of national security.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense multi-
year procurement statute, title 10, U.S.C. Sec.  2306b?
    Answer. I understand that there has been much debate over the 
threshold on the level of cost savings that constitutes ``substantial 
savings.'' In my view the 10 percent figure cited in the conference 
manager's statement is a reasonable benchmark, but I would agree that 
it should not be an absolute definition, as the managers' statement 
provides. I agree with the need to ensure that the savings achieved 
from multi-year contracts are substantial, not only in terms of dollars 
but also in terms of the relative difference in price that the 
Department would otherwise pay for an annual procurement.
    Question. If confirmed, under what circumstances, if any, do you 
anticipate that you would support a multi-year contract with expected 
savings of less than 10 percent?
    Answer. The complexity of each situation makes a general answer 
difficult. I believe that multi-year contracting can provide cost 
savings, and therefore it should be considered as an option to best 
serve the warfighter and taxpayer. The total magnitude of the savings 
that could be achieved and the firmness of the procurement plan would 
be key considerations.
    Question. If confirmed, under what circumstances, if any, would you 
support a multi-year contract for a major system at the end of its 
production line?
    Answer. The complexity of each situation makes a general answer 
difficult, but it could be appropriate in some circumstances to 
consider a program for multi-year procurement when it is nearing the 
end of production. As indicated above, the total magnitude of the 
savings that could be achieved and the firmness of the procurement plan 
would be key considerations.
    Question. Under what circumstances, if any, do you believe that a 
multi-year contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multi-year procurement statute, 10 
U.S.C. Sec.  2306b?
    Answer. Additional analysis and careful review of all information 
should be completed whenever a multi-year contract is being considered 
for use in procuring weapon systems that have shown unsatisfactory 
program histories, but which otherwise comply with the statutory 
requirements. The Department would need to examine very carefully all 
risk factors to determine if a multi-year procurement would be 
appropriate.
    Question. Under what circumstances, if any, should DOD ever break a 
multi-year procurement?
    Answer. The cancellation of a multi-year contract should be a very 
rare event. However, there are circumstances when it could occur. One 
such event would be the failure to fund a program year. Another would 
be the failure of the contractor to perform, which ultimately could 
lead to a decision to terminate for default. In these circumstances, 
breaking a multi-year procurement could be appropriate or even 
required.
    continuing competition and organizational conflicts of interest
    Question. The Defense Science Board Task Force on Defense 
Industrial Structure for Transformation recommended last summer that 
``DOD must increase its use of creative competitive acquisition 
strategies, within limited budgets, in order to ensure long-term 
innovation and cost savings, at both prime and critical sub-tier 
elements. Competition would not be required beyond the competitive 
prototype phase, as long as the current producer continuously improves 
performance and lowers cost--but other contractors should always 
represent a credible option if costs rise or performance is 
unacceptable.'' Section 202 of the Weapon Systems Acquisition Reform 
Act of 2009 requires DOD to take steps to promote continuing 
competition (or the option of such competition) throughout the life of 
major defense acquisition programs.
    Do you agree with the recommendation of the Defense Science Board? 
Do you believe that continuing competition is a viable option on major 
defense acquisition programs?
    Answer. Yes, I believe that Department should use competitive 
acquisition strategies whenever possible. Competition is a powerful 
force in the marketplace, and I believe the Department should strive to 
use that kind of leverage as much as possible in its programs. I 
believe that Department should increase its use of creative competitive 
acquisition strategies as much as possible to ensure long-term 
innovation and cost savings.
    Question. In your view, has the consolidation of the defense 
industrial base gone too far and undermined competition for defense 
contracts?
    Answer. I do not have enough information to provide a definitive 
answer.
    Question. If so, what steps if any can and should DOD take to 
address this issue?
    Answer. It is my understanding that the Department continues to 
discourage mergers and acquisitions among defense materiel suppliers 
that are not in the Department's interest or injurious to national 
security. I believe the Department should continue to work closely with 
the antitrust agencies in evaluating defense-related mergers and 
mitigating negative impacts to ensure a robust, innovative, and 
competitive defense industry. If confirmed, I would work to adjust DOD 
transaction evaluation procedures/criteria as appropriate and I would 
look for creative ways to provide for competition in our programs.
    Question. Section 203 of the Weapon Systems Acquisition Reform Act 
requires the use of competitive prototypes for major defense 
acquisition programs unless the cost of producing such prototypes would 
exceed the lifecycle benefits of improved performance and increased 
technological and design maturity that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. Yes, very much so. I believe that competitive prototypes 
provide an effective mechanism to mature key technologies, refine 
requirements, support preliminary design, improve cost estimation and 
reduce total costs. This does not mean competitive full scale 
prototypes are always the best acquisition approach, and I believe 
there are circumstances where there would not be a good business case 
for them. In these cases, prototyping at the subsystem level could be a 
preferred and viable strategy.
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. I believe competitive prototypes could be beneficial in all 
cases where technologies are immature, alternative design concepts are 
available, requirements lack refinement, cost estimates are 
inadequately informed by demonstrated technical capability, and where 
competition is likely to drive down total cost.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. Given the long-term benefits that result from effective 
prototyping, I expect that there will be few instances where the cost 
of prototyping will outweigh the benefits. In some instances, such as 
where the materiel solution is based on mature, well integrated 
technologies and demonstrated designs, prototyping may be redundant. In 
addition, there are likely to be instances, such as some ship 
development programs, where the cost to develop competitive full system 
prototypes could be prohibitive. In those instances, I would focus on 
prototyping the subsystems with the greatest technical risk. 
Competitive prototyping requires the existence of viable competitors of 
course, but even in instances where there is only one viable supplier, 
risk reduction prototypes prior to Engineering and Manufacturing 
Development are likely to be beneficial to total program cost.
    Question. Section 207 of the Weapon Systems Acquisition Reform Act 
requires the Department to promulgate new regulations to address 
organizational conflicts of interest on major defense acquisition 
programs.
    What steps if any do you believe DOD should take to address 
organizational conflicts of interest in major defense acquisition 
programs?
    Answer. Even the perception of an Organizational Conflict of 
Interest (OCI) may taint the integrity of the competitive procurement 
process. I support the requirements of the Weapons Systems Acquisition 
Reform Act and, if confirmed, would work with the Secretary in 
developing new Defense Federal Acquisition Regulation Supplement 
provisions and regulations or policies to tighten existing requirements 
to avoid, neutralize, or mitigate OCIs, to include limiting a 
contractor's ability to compete on certain future requirements. 
Additionally, I support the Department's activities to remedy OCIs when 
identified in the course of its review of defense-related mergers. If 
confirmed, I would highlight the sensitivity of the issue with the 
acquisition community and work to ensure that it is adequately reviewed 
when considering acquisition strategies and source selections.
    Question. What are your views on the lead system integrator 
approach to managing the acquisition of major weapon systems?
    Answer. The lead system integrator label has been applied to what 
are in reality ``super-primes'' with responsibilities for both systems 
integration and delivering baskets of multiple defense products. I 
believe that there is a need for systems integration across weapons 
systems, but there are other strategies to accomplish this goal then 
super-prime lead systems integrators. I also believe that inherently 
governmental functions should not be transferred to contractors.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Department on the 
acquisition of major weapon systems?
    Answer. I believe that Systems Engineering and Technical Assistance 
support contractors are currently providing critical support to the 
Department's acquisition workforce. However, I believe these 
contractors should not be used to perform inherently governmental 
functions and they should not be used in a situation where a conflict 
of interest or the appearance of a conflict of interest would exist. If 
confirmed, I would support the Department's efforts to increase 
Government staff and reduce its reliance on contractors and as 
indicated above I would work to implement the Weapons System 
Acquisition Reform Act provisions strengthening the conflict of 
interest regulations and policies.
    Question. What lines do you believe the Department should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. When it comes to acquisition responsibilities, I believe 
that only Government personnel may make value judgments and decisions 
that obligate government funds and commit the Government contractually. 
I believe that contractors can support these functions, but that the 
Government must have the depth of expertise to analyze, validate, and 
understand any contractor provided information or analysis and make its 
own judgments about the obligation of Government funds and the 
management of Government contracts. I also recognize that a number of 
other important functions within the defense acquisition community 
should be retained for Government-only performance. Given the current 
workforce mix and the level of contracted support to acquisition 
functions, I believe a careful review is needed to assess the degree to 
which the Department has become too dependent on contractors.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not misuse their access to sensitive and 
proprietary information of DOD and other defense contractors?
    Answer. It is my understanding that USD(AT&L) has issued guidance 
to information assurance and acquisition personnel to ensure strong 
measures are in place to prevent disclosure of this information at the 
individual contract level. I believe existing law covers misuse of this 
type of information and regulations will be strengthened as a result of 
WSARA mandated conflict of interest provisions. If confirmed, I would 
carefully review these measures to ensure they provide sufficient 
protection of sensitive and proprietary information and I would support 
the effort to strengthen regulations designed to prevent conflicts of 
interest that might provide incentives to misuse.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the Government or 
potential competitors in the private sector?
    Answer. I believe that competition at both the prime and 
subcontract level is essential to the Department. If contractors are 
limiting competition at the subcontract level in a manner 
disadvantageous to the Government, it is unacceptable. If confirmed, I 
would review the Department's safeguards against this potential 
situation.
               defense acquisition transformation report
    Question. In February 2007, the Secretary of Defense submitted a 
report to Congress entitled ``Defense Acquisition Transformation Report 
to Congress''.
    If confirmed, to what extent would you support and continue 
implementation of the defense acquisition reform initiatives set forth 
in that report? In particular, please discuss your views regarding the 
following aspects of transformation:
    Answer.

    <bullet>  Portfolio Management: In general, I support the premise 
of Capability Portfolio Management, which is intended to provide an 
enterprise-level, horizontal (cross-component) view to better balance 
and harmonize joint warfighter capability needs. If confirmed, I would 
review the current construct to ensure it enables better-integrated and 
balanced advice across the full spectrum of capability needs to DOD 
senior leadership.
    <bullet>  Tri-Chair Concept Decision: I support harmonizing and 
ensuring good communication exists across the major Department 
processes for requirements, resources and acquisition and, if 
confirmed, would pursue management mechanisms that further those aims.
    <bullet>  Time-Defined Acquisitions: I am not familiar with the 
extent to which this concept has been implemented or what the 
effectiveness has been. I would agree that schedule is a key aspect of 
DOD acquisition decisionmaking and emphasizing time can force a much 
more realistic consideration of acquisition approaches and alternative 
technologies that can be fielded. Shorter times can also create less 
opportunity for requirement growth; and reduce the risk of technology 
and manufacturing obsolescence, but they can also increase risk if 
applied unrealistically. This approach may be most applicable to urgent 
operational needs, but again I am not familiar with how it has been 
implemented to date.
    <bullet>  Investment Balance Reviews: As with portfolio reviews, I 
believe there is value in looking broadly across the Department to 
assess the opportunities and national security threats across all the 
Services and to determine where to best focus our future investments.
    <bullet>  Risk-Based Source Selection: It is my understanding this 
initiative is to use techniques that enhance the quality of requests 
for proposals and source selections by improving technical criteria and 
making the Department a ``smarter'' buyer. If confirmed, I would review 
these efforts to ascertain whether they are effective and should be 
further strengthened.
    <bullet>  Acquisition of Services Policy: It is my understanding 
this policy imposed changes in the way the Department manages and 
reviews the performance of service contracts. I am aware that the 
Department spends more on service contracts than it does on major 
weapons systems, so this is an area of great concern.
    <bullet>  Systems Engineering Excellence: I believe that sound 
systems engineering is critical to acquisition programs throughout 
their life but especially in their early stages. If confirmed, I would 
encourage early and effective systems engineering and I would work 
closely with the Director of Systems Engineering to ensure the 
Department's programs utilize sound systems engineering practices. I 
would also work to grow the size and the quality of the Government's 
systems engineering workforce and to ensure that the industrial basis 
has adequate capacity in this area.
    <bullet>  Award Fee and Incentive Policy: I support linking award 
fee and incentive payments to objective measureable acquisition 
outcomes such as cost, schedule, and technical performance. If 
confirmed, I would intend to assess such initiatives and related policy 
and make any adjustments necessary to ensure that their intended 
purposes are being met.
    <bullet>  Open, Transparent, and Common Shared Data Resources with 
Defense Acquisition Management Information Retrieval (DAMIR): I am not 
familiar with DAMIR, but I understand that it currently provides 
enterprise visibility to acquisition program information. If confirmed, 
I would review the effectiveness of DAMIR and support initiatives 
focusing on implementation of open, transparent, and common shared data 
resources and steps that would improve the management of the 
Department's programs.
    <bullet>  Restructured Defense Acquisition Executive Summary (DAES) 
Reviews: In my experience, the DAES reviews provide a forum for OSD to 
work with the Services and Agencies to evaluate program execution. I 
believe these kinds of oversight reviews are critical and must be based 
on objective information aimed at identifying problems early, getting 
to their root, and fixing them. I think it is equally important to 
learn what is working well and why. If confirmed, I would review this 
process to assess its effectiveness at meeting these goals and consider 
options to improve the process.
    <bullet>  Policy on Excessive Pass-Through Charges: I fully support 
ensuring that pass-through charges on contracts or subcontracts that 
are entered into for or on behalf of DOD are not excessive in relation 
to the cost of work performed by the relevant contractor or 
subcontractor.

    Question. Are there other initiatives or tools discussed in the 
Defense Acquisition Transformation Report that you view as particularly 
likely, or unlikely, to be productive in achieving acquisition reform?
    Answer. If confirmed, I would review the report fully to understand 
any additional proposed ways and means to improve the effectiveness and 
efficiency of the acquisition system and I would take appropriate 
action to implement those that are likely to be productive.
              operation of the defense acquisition system
    Question. On December 2, 2008, the Department promulgated a new 
version of DOD Instruction 5000.02, the key guidance on the 
Department's acquisition of major weapon systems. The revised 
instruction restructured the management framework for translating 
capability needs and technology opportunities into stable, affordable, 
and well-managed defense acquisition programs.
    What is your assessment of the new version of this instruction and 
the extent of its implementation to date?
    Answer. The new instruction is a constructive step, and if 
confirmed, I would ensure that it is effectively implemented and seek 
to improve upon it consistent with the Secretary's guidance to improve 
acquisition.
    Question. If confirmed, what steps would you take to continue 
implementation of the new version of DOD Instruction 5000.2 and improve 
upon it?
    Answer. If confirmed, I would monitor the implementation and 
effectiveness of the new policies. If necessary, I would alter these or 
introduce additional policies to ensure that our programs comply with 
the Instruction and achieve cost, schedule, and performance objectives.
                        contracting for services
    Question. Over the past 8 years, DOD's spending on contract 
services has more than doubled, with the estimated number of contractor 
employees working for the Department increasing from an estimated 
730,000 in fiscal year 2000 to an estimated 1,550,000 in fiscal year 
2007. As a result, the Department now spends more for the purchase of 
services than it does for products (including major weapon systems).
    Do you believe that DOD can continue to support this rate of growth 
in its spending on contract services?
    Answer. It is my understanding the rate of growth in this area may 
have leveled off somewhat over the past year or so and that Secretary 
Gates is committed to scale back the role of contractors in support 
services. If confirmed, I would intend to work with the Department's 
senior leadership to address the underlying question about whether the 
Defense Department is adequately staffed, quantitatively and 
qualitatively, to carry out its responsibilities. Even if the 
Department decreases its spending on contracted services while 
increasing funding for new civilian billets to perform functions 
previously accomplished by contractors, the Department would need to 
ensure there are a sufficient number of qualified Government civilian 
or military personnel dedicated to perform meaningful oversight of 
contractor activities. I believe that the Department also needs to look 
carefully at the content of the services that DOD is contracting for to 
ensure that these taxpayer dollars are being spent efficiently and on 
services that are truly needed.
    Question. Do you believe that the current balance between 
Government employees (military and civilian) and contractor employees 
is in the best interests of DOD?
    Answer. One of the biggest surprises to me in becoming familiar 
with current staffing levels since my nomination is the extent to which 
Government employees have been replaced by contractors since I left the 
Department 15 years ago. I understand that during this past year, 
Secretary Gates has committed to alter the mix between Government 
employees and contractor employees and that efforts are underway to in-
source a number of functions. I am not familiar enough with the current 
situation to assess where the correct balance lies, but I fully support 
Secretary Gates' initiative and as the Department moves forward with 
in-sourcing I would, if confirmed, work to help ensure that a more 
appropriate balance is achieved.
    Question. What steps if any would you take, if confirmed, to 
control the Department's spending on contract services?
    Answer. If confirmed, I would work with the Department's senior 
leadership to analyze not only the amount of spending on contracted 
services, but also the degree to which contracted services are employed 
in the various functional support areas. As stated above, I believe 
that we need to look carefully at the content of the services that DOD 
is contracting for to ensure that these taxpayer dollars are being 
spent efficiently and on services that are truly needed.
    Question. At the request of the committee, GAO has compared DOD's 
practices for the management of services contracts to the practices of 
best performers in the private sector. GAO concluded that leading 
companies have achieved significant savings by insisting upon greater 
visibility and management over their services contracts and by 
conducting so-called ``spend'' analyses to find more efficient ways to 
manage their service contractors. Section 801 of the National Defense 
Authorization Act for Fiscal Year 2002 required DOD to move in this 
direction. Sections 807 and 808 of the National Defense Authorization 
Act for Fiscal Year 2008 built on this provision by requiring 
inventories and management reviews of contracts for services.
    Do you believe the Department is providing appropriate stewardship 
over service contracts?
    Answer. I do not have sufficient knowledge to make an assessment at 
this time. If confirmed, ensuring appropriate oversight of service 
contracts would be a high priority for me.
    Question. Do you believe that the Department has appropriate 
management structures in place to oversee the expenditure of more than 
$150 billion a year for contract services?
    Answer. I have not had an opportunity to assess the management 
structures that are in place, but if confirmed, I would work with the 
Department's senior leadership to make the necessary adjustments in 
order to implement President Obama's direction to carry out robust and 
thorough management and oversight of contracts, including contracts for 
services.
    Question. Do you believe that the Department should conduct a 
comprehensive analysis of its spending on contract services, as 
recommended by GAO?
    Answer. Although I am not familiar with the specific GAO 
recommendations regarding a comprehensive analysis, I agree that a 
comprehensive analysis of spending on contracted services is necessary. 
I understand some efforts are underway, but I do not know the extent to 
which such a review may have already been carried out. If confirmed I 
would work to ensure that this is done effectively.
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. Yes.
    Question. If confirmed, will you fully comply with the requirement 
of section 807 of the National Defense Authorization Act for Fiscal 
Year 2008, to develop an inventory of services performed by contractors 
comparable to the inventories of services performed by Federal 
employees that are already prepared pursuant to the Federal Acquisition 
Inventory Reform (FAIR) Act?
    Answer. Yes.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Department's management of its contracts for 
services?
    Answer. If confirmed, I would make a point of emphasizing to senior 
leaders the vital role they must play in diligently managing service 
contracts in a way that maximizes the benefit to the warfighter and the 
taxpayer. I would assist the USD(AT&L) in identifying and reviewing, 
and as appropriate implementing, additional steps that would improve 
the management of contracts for services.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by Government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. Although I do not have detailed knowledge, it appears to me 
that the Department may have become overly reliant on support 
contractors. If confirmed, I would be particularly focused on ensuring 
we make the necessary adjustments to ensure the Defense Acquisition 
Workforce is not overly reliant on support contractors.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. I do not have detailed knowledge of this subject and am 
unable to make a judgment, but I am concerned that this may be a 
problem that needs addressing and if confirmed I would work to 
understand the situation and take appropriate action as needed within 
the scope of my responsibilities.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by Government employees?
    Answer. I am not familiar with the details of how personal conflict 
of interest standards are being applied to contractor employees today. 
I do believe that support contractor employees who have access to 
sensitive or source selection sensitive information, should be subject 
to similar ethical standards as the Government employees they support.
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than any previous U.S. 
military operations. According to widely published reports, the number 
of U.S. contractor employees in Iraq and Afghanistan have exceeded the 
number of U.S. military deployed in those countries.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. I am not familiar enough with the details of how contractor 
support is being used to support military operations to have a firm 
opinion. I know that contractors are providing many necessary services 
in support of military operations and that the numbers are large, but I 
do not know if the Department has become too dependent on their 
support. It is my understanding that Deputy Secretary Lynn issued a 
directive to the Secretaries of the military departments and combatant 
commanders to undertake a review of all contracted services for 
possible in-sourcing as a part of a Total Force Management Strategy. If 
confirmed, I would work with the senior leadership of the Department to 
carry out this directive and to take any necessary corrective action 
within the scope of my responsibilities.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. I believe the largest risks with such a large reliance on 
contractor support is assured availability of those services in combat 
zones in the future and the Department losing critical core knowledge 
of inherently governmental functions. The first step in mitigating such 
risk is to ensure the senior leaders have accurate information so that 
they have a clear understanding of the risks given the current 
workforce mix between military, civilian and contractors. Once the 
risks are fully understood, mitigating options should be considered as 
needed.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. I do not have the knowledge necessary to provide a 
definitive answer. It is my understanding that there have been 
shortcomings in recent years, and if confirmed, I would intend to 
actively participate in taking action to address any such shortcomings.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. It is my understanding the USD(AT&L) has developed guidance 
and tools to improve the management of contractors on the battlefield 
and is developing additional guidance at this time. If confirmed, I 
would review these initiatives and take steps to ensure appropriate 
attention is given to this issue.
                      private security contractors
    Question. The Special Inspector General for Iraq Reconstruction 
(SIGIR) recently reported that Federal agencies including DPD have 
spent more than $5 billion for private security contractors in Iraq 
since 2003. Over this period, there have been numerous reports of 
abuses by private security contractors, including allegations of 
contractors shooting recklessly at civilians as they have driven down 
the streets of Baghdad and other Iraqi cities. In September 2007, 
employees of Blackwater allegedly opened fire on Iraqis at Nisour 
Square in downtown Baghdad, killing more than a dozen Iraqis and 
wounding many more. Most recently, private security contractors were 
reported to have engaged in inappropriate activities at the U.S. 
embassy in Kabul.
    Do you believe DOD and other Federal agencies should rely upon 
contractors to perform security functions that may reasonably be 
expected to require the use of deadly force in highly hazardous public 
areas in an area of combat operations?
    Answer. I believe that the use of private security contractors, and 
more generally the use of contractors in wartime, deserves careful 
review and other alternatives should be considered, particularly in 
highly hazardous public areas. I also believe that if physical security 
contractors are used that they should not be allowed to operate with 
legal impunity for their actions.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq and Afghanistan?
    Answer. I believe that all Americans and American employees in 
combat theaters, including military personnel and contractors, must 
display proper conduct or they will undermine our objectives. The 
failure to do so can have and has had an effect on defense and foreign 
policy objectives. In my view even if there is a compelling need for 
private security contractors, despite any risks associated with their 
use, they must be properly screened, trained, supervised, and held 
accountable for any misconduct.
    Question. What steps if any would you take, if confirmed, to ensure 
that any private security contractors who may continue to operate in an 
area of combat operations act in a responsible manner, consistent with 
U.S. defense and foreign policy objectives?
    Answer. I believe that using private security contractors in any 
area of combat operations must be fully coordinated across the 
Government to ensure there are consistent procedures and policies for 
all such contractors. There must also be effective legal accountability 
for the actions of private security contractors and as stated above 
they must be properly screened, trained, and supervised. If confirmed, 
I would review further steps that should be taken to ensure that this 
is the case.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I am not an expert in this area, but it is my understanding 
that DOD has consistently supported unambiguous application of the 
Military Extraterritorial Jurisdiction Act (MEJA) to all U.S. 
Government private security contractors operating in contingency areas. 
In the absence of another effective mechanism to ensure legal 
accountability I would support the extension of MEJA to all Federal 
agencies.
    Question. What is your view of the appropriate application of the 
Uniform Code of Military Justice (UCMJ) to employees of private 
security contractors operating in an area of combat operations?
    Answer. I support the use of appropriate civilian and military 
legal processes to enforce accountability for the actions of all 
contractors deployed to an area of combat operations. I believe that in 
the absence of an effective civil legal system that the UCMJ could 
provide an acceptable alternative for holding people accountable for 
their actions; however, I understand that there may be legal issues 
associated with applying the UCMJ to civilian contractors that might 
have to be resolved.
    Question. Office of Management and Budget Circular A-76 defines 
``inherently governmental functions'' to include ``discretionary 
functions'' that could ``significantly affect the life, liberty, or 
property of private persons.''
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. I understand that DOD's position is that the decision to 
use private security contractors (including subcontractors) is in 
compliance with current U.S. Government policy and regulations. I have 
no basis to question that legal position.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. The role of DOD contractors in various circumstances raises 
issues of appropriateness, and if confirmed I would intend to 
participate in shaping policies regarding the appropriate use of 
contractors to the extent appropriate given the scope of my 
responsibilities.
    Question. Do you see a need for a comprehensive reevaluation of 
these issues now?
    Answer. I believe this type of evaluation could support efforts to 
strengthen current operations as well as to more fully understanding 
the appropriate roles and capabilities of contractors supporting the 
Department in future operations, but I am not familiar with any reviews 
that may have been conducted or be in progress.
                     government contracting reform
    Question. In a memorandum to the heads of all Federal agencies, the 
President on March 4, 2009, directed a Government-wide review of 
contracting procedures, stating that ``executive agencies shall not 
engage in noncompetitive contracts, except in those circumstances where 
their use can be fully justified and where appropriate safeguards have 
been put in place to protect the taxpayer.''
    If confirmed, what role would you play in determining whether the 
use of noncompetitive contracts could be fully justified?
    Answer. If confirmed, I would continue to emphasize the importance 
of competition. I would also review the existing processes to see if 
additional guidance or adjustments are required pursuant to the 
President's guidance. For programs whose acquisition strategies are 
reviewed by the USD(AT&L), I would expect to be involved in the 
determination as to whether competition had been appropriately provided 
for in the acquisition strategy and I would work closely with the 
Service acquisition executives and agency heads to ensure that 
competitive opportunities are maximized. It is also my understanding 
that the Department is taking steps to re-invigorate the role of the 
Competition Advocate to ensure that they are actively participating in 
acquisition strategy determinations and are engaged in the review of 
noncompetitive contracts.
    Question. In your opinion, how would the direction in this memo 
affect the use of single-award and multiple-award Indefinite Delivery/
Indefinite Quantity (IDIQ) contracts?
    Answer. I support the direction in the memo emphasizing competition 
and appropriate use of various contract types and to my knowledge, the 
memo will not restrict the use of single and multiple award IDIQ 
contracts. It is my understanding that the Department does not support 
the use of single-award IDIQ contracts unless they are absolutely 
necessary. If confirmed, I would intend to review these practices 
pursuant to the President's guidance.
                          contracting methods
    Question. The Office of Federal Procurement Policy and DOD have 
long agreed that Federal agencies could achieve significant savings and 
improved performance by moving to ``performance-based services 
contracting (PBSC).'' Most recently, the Army Environmental Program 
informed the committee that it has achieved average savings of 27 
percent over a period of several years as a result of moving to fixed-
price, performance-based contracts for environmental remediation. 
Section 802 of the National Defense Authorization Act for Fiscal Year 
2002, as amended, established performance goals for increasing the use 
of PBSC in DOD service contracts.
    What is the status of the Department's efforts to increase the use 
of PBSC in its service contracts?
    Answer. I am not yet in a position to provide the status of the 
Department's efforts to increase the use of ``performance based 
services'' methodologies in service contracts. However, if confirmed, I 
would review the Department's efforts to increase the use of PBSC.
    Question. What additional steps if any do you believe the 
Department needs to take to increase the use of PBSC and meet the goals 
established in section 802?
    Answer. I am not yet in a position to express a view on this 
subject. If confirmed, I would assess the Department's efforts in this 
area and ensure that appropriate steps are taken.
    Question. In recent years, DOD has relied heavily on time-and-
materials contracts for the acquisition of services. Under such a 
contract, the Department pays a set rate per hour for contractor 
services, rather than paying for specific tasks to be performed. In 
some cases, contractors have substituted less expensive labor under 
time-and-materials contracts, while continuing to charge Federal 
agencies the same hourly rates, resulting in effective contractor 
profits of 25 percent or more.
    What is your view of the appropriate use of time-and-materials 
(T&M) contracts by DOD?
    Answer. In my view, the use of T&M contracts often represents a 
poor business arrangement for the Government. If confirmed, I would 
engage to fully support appropriate limitations on the use of T&M 
contracts.
    Question. What steps if any do you believe the Department should 
take to minimize the abuse of time-and-materials contracts?
    Answer. It is my understanding that the Department has taken steps 
to minimize the abuse of T&M contracts but I do not have detailed 
knowledge of those actions. If confirmed, I would review the various 
initiatives and determine what, if any, additional measures are 
necessary to limit the use and abuse of T&M contracts.
    Question. Section 852 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 requires DOD to promulgate 
regulations prohibiting excessive ``pass-through'' charges on DOD 
contracts. Pass-through charges are charges added by a contractor for 
overhead and profit on work performed by one of its subcontractors, to 
which the contractor provided no added value. In some cases, pass-
through charges have more than doubled the cost of services provided to 
DOD.
    What is your view of the regulations promulgated by DOD to 
implement the requirements of section 852?
    Answer. While I have not had the opportunity to analyze this matter 
sufficiently in order to form an opinion, if confirmed, I would 
carefully review the regulations being implemented. I do believe that 
effective regulations to prevent excessive ``pass-through'' profits are 
necessary.
    Question. What additional steps if any do you believe the 
Department should take to address the problem of excessive pass-through 
charges?
    Answer. I do not have enough information to make a recommendation 
at this time.
                        interagency contracting
    Question. GAO recently placed interagency contracting--the use by 
one agency of contracts awarded by other agencies--on its list of high-
risk programs and operations. While interagency contracts provide a 
much-needed simplified method for procuring commonly used goods and 
services, GAO has found that the dramatic growth of interagency 
contracts, the failure to clearly allocate responsibility between 
agencies, and the incentives created by fee-for-services arrangements, 
have combined to expose DOD and other Federal agencies to the risk of 
significant abuse and mismanagement. The DOD Inspector General and the 
General Services Administration Inspector General have identified a 
long series of problems with interagency contracts, including lack of 
acquisition planning, inadequate competition, excessive use of T&M 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance. DOD, in conjunction with 
the General Services Administration and the Office of Management and 
Budget, is taking a number of actions to improve training and guidance 
on the use of this contract approach.
    If confirmed, what steps if any will you take to monitor and 
evaluate the effectiveness of the actions currently underway or planned 
regarding DOD's use of other agencies' contracts?
    Answer. I am not yet in a position to offer recommendations on this 
subject. However, interagency contracting can be an efficient and 
effective method to meet mission requirements, but it must be done in a 
way that gives best value to the taxpayer. If confirmed, I would 
carefully review and evaluate whether or not current or planned actions 
are effective and assess whether additional measures are warranted.
    Question. Do you believe additional authority or measures are 
needed to hold DOD or other agency personnel accountable for their use 
of interagency contracts?
    Answer. I am not yet in a position to express a view on this 
subject. However, if confirmed, I would review and evaluate whether or 
not additional authorities or measures are warranted.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by DOD personnel is within the scope 
of their contract?
    Answer. My understanding is that the primary responsibility for 
ensuring work is within the scope of the contract rests with the 
contracting officer. I believe that if a contractor is uncertain 
whether or not supplies or services ordered are within scope of their 
contract they should consult with the contracting officer before 
expending any resources on the requested work.
    Question. Do you believe that DOD's continued heavy reliance on 
outside agencies to award and manage contracts on its behalf is a sign 
that the Department has failed to adequately staff its own acquisition 
system?
    Answer. I am not aware of the extent to which this practice is 
being followed nor of the extent to which it may reflect a problem with 
Department staffing levels, so I am not yet in a position to express a 
view on this subject; however, if confirmed, I would examine whether or 
not the Department is adequately staffed to manage and execute its 
contracts. The Department should only utilize the expertise of non-DOD 
agencies operating under Congressional authority to acquire supplies 
and services if those agencies have demonstrated that they contract for 
our goods and services efficiently, effectively, in accordance with DOD 
policy and if they provide a cost effective alternative to direct DOD 
management.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. Yes.
    Question. What steps if any do you believe DOD should take to 
address these problems?
    Answer. I have not had an opportunity to review how the Department 
is currently addressing the acquisition of business systems so it would 
be premature for me to express an opinion. If confirmed, I would review 
the current practices to see if changes are necessary.
    Question. If confirmed, how would you work with the Chief 
Information Officer (CIO) of DOD to take these steps?
    Answer. If confirmed, I would work closely with the DOD CIO and I 
would ensure the OUSD (AT&L) staff and the DOD CIO staff work closely 
together to identify and take any steps needed to improve the 
acquisition of the Department's business systems.
    Problems with computer software have caused significant delays and 
cost overruns in a number of major defense programs. Section 804 of the 
National Defense Authorization Act for Fiscal Year 2003 required DOD to 
establish a program to improve the software acquisition process.
    Question. What steps if any would you take, if confirmed, to 
address delays and cost overruns associated with problems in the 
development of software for major weapon systems?
    Answer. If confirmed, I would review the implementation of section 
804 and make any necessary recommendations for improvement. I believe 
many of the challenges in the past were the result of factors such as 
inadequate technical maturity, undisciplined or poorly understood 
requirements, poor configuration management practices, the lack of 
disciplined and mature software development processes, and shortages of 
qualified people. If confirmed, I would work to identify the root 
causes of the Department's software development problems, identify 
solutions and implement appropriate corrective action.
    Question. What role if any do you believe that the Chief 
Information Officer of DOD should play with regard to the acquisition 
of information technology that is embedded in weapon systems?
    Answer. Information technology is ubiquitous and integral to any 
weapon system today and I believe the Chief Information Officer of DOD 
can and should play a key role in advising on information technology 
and interoperability matters affecting weapon systems.
    Question. Section 804 of the National Defense Authorization Act for 
Fiscal Year 2010 would require the Secretary of Defense to establish a 
new acquisition process for information technology programs.
    Do you believe that the acquisition of information technology (IT) 
systems is sufficiently different from the acquisition of other systems 
to justify the development of a unique acquisition process?
    Answer. While the acquisition of IT systems is similar to the 
acquisition of other systems in many ways, I believe they are 
sufficiently different that the Department should consider an 
alternative or tailored IT acquisition process but I have not had an 
opportunity to examine specific proposals. If confirmed, I would review 
any existing proposals and take appropriate action.
    Question. If so, what do you see as the unique features that would 
be desirable for an information system acquisition process? What types 
of information technology programs do you believe should be covered by 
the new process?
    Answer. I have not reviewed this subject in any detail, however 
some features of the new process that might be desirable include: 
relatively short duration increments/releases of capability; better 
informed cost estimates; and more frequent progress reviews. I also 
believe that strong incentive provisions should be a key feature of any 
dedicated information systems acquisition process.
                         acquisition workforce
    Question. Over the last 15 years, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Since September 11, 2001, moreover, the demands placed on 
that workforce have substantially increased. While DOD has started the 
process of planning its long-term workforce needs, the Department does 
not yet have a comprehensive strategic workforce plan needed to guide 
its efforts.
    Do you believe that DOD's workforce is large enough and has the 
skills needed to perform the tasks assigned to it?
    Answer. Not at this time, but I know that actions are underway to 
improve the situation. Secretary Gates has announced his intent to 
increase the size of the DOD acquisition workforce by approximately 
20,000. If confirmed, improving both the size and the quality of the 
acquisition workforce would be a high priority for me.
    Question. In your view, what are the critical skills, capabilities, 
and tools that DOD's workforce needs for the future? What steps will 
you take, if confirmed, to ensure that the workforce will, in fact, 
possess them?
    Answer. The needed skills include program management, systems 
engineering, other engineering disciplines, test planning and 
management, contracting, cost estimating, risk management, pricing, 
manufacturing process management, and quality control among the 
capabilities that are essential for ensuring sound acquisition 
outcomes. If confirmed, I would actively support Secretary Gates' 
initiative to increase the size of the acquisition workforce and I 
would work to ensure that a balanced set of capabilities exists to 
fulfill the Department's roles in acquisition.
    I believe the Department must attract talented people into the 
acquisition workforce; give them challenging work; retain capable 
people; and ensure all the Department's acquisition employees are fully 
trained and qualified for the mission critical work they are asked to 
perform. If confirmed, I would strive to ensure a high quality, high 
performance work environment where employees are valued and effective 
members of the DOD acquisition workforce are properly rewarded for 
their efforts.
    Question. Do you agree that the Department needs a comprehensive 
human capital plan, including a gap analysis and specific recruiting, 
retention and training goals, to guide the development of its 
acquisition workforce?
    Answer. In general, yes. I am not familiar with what the Department 
has done in this regard, but I believe that a comprehensive human 
capital plan that addresses recruiting and hiring, recognition and 
retention, and training and workforce development would be beneficial.
    Question. What steps if any do you think are necessary to ensure 
that the Department has the ability it needs to attract and retain 
qualified employees to the acquisition workforce?
    Answer. If confirmed, I would do all I can to ensure we have a 
properly sized, highly qualified, professional acquisition workforce. I 
understand that the largest numbers of people in the acquisition 
workforce are engineering, scientific and technical professionals, 
followed by business-oriented people, such as contracting officers. The 
acquisition workforce must be agile, flexible, and prepared to adapt 
our buying practices to match our national security needs. To attract 
and retain high quality people the Department must provide challenging 
and rewarding work and competitive compensation. I believe that there 
is nothing more inherently rewarding than serving one's country as the 
men and women of our Armed Forces and our civilian employees do and I 
will work to see that this attitude permeates our recruiting and 
retention efforts.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, Federally-
Funded Research and Development Centers (FFRDCs), and, in some cases, 
prime contractors for this expertise?
    Answer. My impression is that this is the case, at least to some 
degree; however, I have not reviewed any data that would confirm the 
extent of the problem. High quality government professionals are 
critical to protecting the interests of the warfighter and the 
taxpayer. I believe that it is important that the Department strike the 
right balance between our organic capability and contractor support 
personnel. If confirmed, I would work to understand how many support 
contractors we have, what they are doing, and at what cost and I would 
work to better understand the roles of FFRDCs and any limitations on 
their contributions. Once I have this information I would be in a 
position to assess the magnitude of the problem and to develop specific 
recommended solutions as needed.
    Question. What is the appropriate tenure for program managers and 
program executive officers to ensure continuity in major programs?
    Answer. I believe that program managers and program executive 
officers need to be in their positions long enough to be accountable 
for their decisions in successfully meeting appropriate milestones. The 
people who take on the responsibilities of these positions must be 
fully qualified professionals. I am aware that there are statutory 
tenure requirements prescribed for these and other key leadership 
positions, which I support. If confirmed, I would examine closely how 
well this policy is being implemented.
    Question. Section 852 of the National Defense Authorization Act for 
Fiscal Year 2008 established an Acquisition Workforce Development Fund 
to help DOD address shortcomings in its acquisition workforce. The fund 
would provide a minimum of $3 billion over 6 years for this purpose.
    Do you believe that the Acquisition Workforce Development Fund is 
needed to ensure that DOD has the right number of employees with the 
right skills to run its acquisition programs in the most cost effective 
manner for the taxpayers?
    Answer. Yes.
    Question. If confirmed, what steps if any will you ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. Working with the USD(AT&L), I would, if confirmed, review 
the process and initiatives in place to ensure critical resources are 
allocated to the greatest needs.
   procurement fraud, integrity, and contractor responsibility issues
    Question. Recent acquisition scandals have raised concerns about 
the adequacy of existing mechanisms to uphold procurement integrity and 
prevent contract fraud.
    What is your view of the adequacy of the tools and authorities 
available to DOD to ensure that its contractors are responsible and 
have a satisfactory record of integrity and business ethics?
    Answer. I have not had an opportunity to review the existing tools 
and authorities and am not in a position to comment or make a 
recommendation.
    Question. In your view, are current ``revolving door'' statutes 
effective?
    Answer. I do not have any information that would permit me to 
assess the effectiveness of the current ``revolving door'' statutes.
    Question. What tools other than law enforcement measures could be 
used to help prevent procurement fraud and ethical misconduct?
    Answer. It is my understanding that the Department's Panel on 
Contracting Integrity has developed tools and information to identify 
and root out fraud. Specifically, the Panel has drafted a handbook of 
acquisition fraud indicators in scenario form for training and 
awareness. I have not reviewed these products, however, if confirmed, I 
would assess these tools to determine whether existing measures are 
adequate.
    Question. Are there sufficient enforcement mechanisms to ensure 
compliance with laws and regulations?
    Answer. To the best of my knowledge there are sufficient 
enforcement mechanisms under existing laws and regulations.
                            ``buy america''
    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years. As a result, there have been 
a number of legislative efforts to place restrictions on the purchase 
of defense products from foreign sources.
    What benefits do you believe the Department obtains from 
international participation in the defense industrial base?
    Answer. I do not have any information that would allow me to assess 
the degree to which these benefits are being realized in practice, 
however the potential benefits are many. I believe international 
participation in the defense industrial base serves to promote the 
interoperability, standardization, and rationalization of the 
conventional defense equipment used by the Armed Forces of the United 
States, its allies and other friendly governments. It also can help to 
avoid or reduce duplication in research and development initiatives and 
can lead to economies of scale in production of systems. These 
attributes can lead to savings in terms of the time and money needed to 
develop, produce, support, and sustain the materiel needed and used by 
our warfighters. In many cases, it enables the Department to achieve 
the advantages of competition in contracting, which includes the 
ability to obtain world class, best value products for our warfighters. 
Further, international participation in the defense industrial base 
encourages development of mutually beneficial industrial linkages that 
enhance U.S. industry's access to global markets and exposes U.S. 
industry to international competition, helping to ensure that U.S. 
firms remain innovative and efficient.
    Question. Under what conditions, if any, would you support the 
imposition of domestic source restrictions for a particular product?
    Answer. In certain instances, involving national security or the 
preservation of a key defense technology, design capability, or 
production capability, domestic source restrictions may be advisable. 
The Department holds (and, I understand, has exercised) the authority 
to ``self-impose'' such domestic source restrictions.
    Question. Section 831 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 requires the Secretary of 
Defense to ensure that the U.S. firms and U.S. employment in the 
defense sector are not disadvantaged by unilateral procurement 
practices by foreign governments, such as the imposition of offset 
agreements in a manner that undermines the U.S. industrial base.
    What steps if any do you believe the Department should take to 
implement this requirement?
    Answer. I am not familiar enough with the ongoing steps to make a 
recommendation. I understand that DOD participates in an Interagency 
Working Group consisting of representatives from the Departments of 
Labor, Commerce, State and the U.S. Trade Representative to consult 
with other nations about limiting the adverse effects of offsets. The 
interagency team, chaired by the USD(AT&L), conducts consultations with 
foreign nations and domestic entities, including defense contractor 
associations and labor organizations regarding the effect of offset 
requirements. If confirmed, I intend to support the Secretary of 
Defense to make every effort to ensure that the policies and practices 
of the Department reflect the goal of establishing an equitable trading 
relationship between the United States and its foreign defense trade 
partners.
    Question. The Defense Science Board Task Force on ``Defense 
Industrial Structure for Transformation'' found in July 2008 that U.S. 
policy regarding ``Buy America'' and the ``Berry Amendment'' inhibits 
the Nation from gaining the security and economic benefits that could 
be realized from the global marketplace.
    What is your opinion of ``Buy America'' legislation and the ``Berry 
Amendment''?
    Answer. I have not had the opportunity to review the Defense 
Science Board Report or to evaluate its recommendations and I am not 
adequately familiar with the details of the existing restrictions to 
evaluate their costs and benefits. If confirmed, I would review this 
area and make recommendations for change that I concluded were needed.
                      the defense industrial base
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. I have not had the opportunity to review a detailed 
assessment of the health of the industrial base. Our defense and 
technology industrial base does develop, produce, and support 
militarily superior defense systems that are the most capable in the 
world; however I am concerned that some trends in defense investment 
may be having a negative effect on the Nation's industrial base. If 
confirmed, I would work to understand this situation in depth and to 
assess the need for actions that might be necessary or prudent to 
ensure the continued health of the industrial base.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. I believe that the competitive pressure of the marketplace 
remains the best vehicle to shape an industrial environment that 
supports the defense strategy and that preserving competition is 
important to national security. As indicated in response to a previous 
question, I do not have enough information to provide a definitive 
answer about the acceptability of further consolidation, but I suspect 
that the situation varies depending on the industrial base sector 
considered. If confirmed, I would work with the Director of Industry 
Policy and others to understand this situation. If confirmed, I would 
also oppose business combinations when it is necessary to do so in 
order to maintain appropriate competition and develop and/or preserve 
industrial and technological capabilities (at all levels of the supply 
chain) that are essential to defense.
    I support the Department's overall policy to review each proposed 
merger, acquisition, and teaming arrangement on its particular merits 
in the context of the individual market and the changing dynamics of 
that market. If confirmed, I would work with Department leadership to 
evaluate options to address continued consolidation.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. Generally, with appropriate security protections, I am not 
opposed to foreign investment in the defense sector; however, each 
investment must be considered on its own merits. Foreign firms can 
enhance competition which can lower costs of specific defense systems, 
as well as provide for the inclusion of leading edge technologies which 
have been developed abroad. In addition, such investment in the long-
run will increase interoperability between the United States and its 
allies. Nevertheless, the Department must ensure that foreign 
investment in the defense sector does not create risks to national 
security. I support strong DOD participation in the Committee on 
Foreign Investment in the U.S. (CFIUS) which conducts national security 
reviews of foreign acquisitions of U.S. firms. I also support strong 
DOD participation in implementation of the export control laws to help 
ensure that defense-relevant U.S. technologies resident in foreign-
owned firms with DOD contracts are not transferred overseas or to 
foreign nationals without proper authorization.
    Question. What steps if any do you believe DOD should take to 
ensure the continued health of the U.S. defense industry?
    Answer. If confirmed, I would support the Department's current 
strategy to rely as much as possible on competitive free market forces 
to create, shape, and sustain the industrial and technological 
capabilities needed to provide for the Nation's defense. However, I 
also believe that the Department needs to thoroughly understand the 
current and projected health of the industrial base across the spectrum 
of defense products and at all levels of the supply chain and should be 
willing to take action, within the range of options available to the 
Department, to ensure the continued health of the base where necessary. 
If confirmed, I would work to ensure sound acquisition practices that 
would inherently strengthen the industrial base, and I would include 
industrial base considerations as a factor in acquisition decisions 
where appropriate.
                          manufacturing issues
    Question. The recent Defense Science Board (DSB) study on the 
Manufacturing Technology Program made a number of findings and 
recommendations related to the role of manufacturing research and 
capabilities in the development and acquisition of defense systems.
    Have you reviewed the findings of the DSB Task Force on the 
Manufacturing Technology Program?
    Answer. Not in detail, however I have been made aware of some of 
the recommendations in the report.
    Question. What recommendations, if any, from the Task Force would 
you plan to implement if confirmed?
    Answer. I understand that the overarching recommendation of the DSB 
report was to give ``leadership emphasis'' to manufacturing technology, 
and, if confirmed, I would definitely do so. Manufacturing technology 
can be an enabler for weapons systems production and a source of major 
cost savings. I also understand that the DSB recommended that 
manufacturing readiness should be assessed more rigorously before 
programs pass into production. I would agree that manufacturing 
readiness is an important consideration in the decision to enter 
production and if confirmed I would review current processes to ensure 
that manufacturing readiness is properly assessed.
    Question. What incentives do you plan to use to enhance industry's 
incorporation and utilization of advanced manufacturing processes 
developed under the manufacturing technology program?
    Answer. I have not reviewed the incentives the Department is 
currently using and can not comment on their adequacy or whether 
additional steps are necessary. In general, competitive pressure should 
provide the most cost effective manufacturing technologies, but where 
those pressures do not exist other mechanisms may have to be 
implemented. If confirmed, I would work to identify and implement 
appropriate mechanisms.
                         science and technology
    Question. What, in your view, is the role and value of science and 
technology programs in meeting the Department's transformation goals 
and in confronting irregular, catastrophic, traditional and disruptive 
threats?
    Answer. I believe science and technology play a large role as the 
Department takes on the challenge of accomplishing an expanded range of 
missions, just as it does in improving the Department's capabilities 
for current missions. The threats to our national security have 
expanded into cyberspace as well as physical space. The threats the 
Nation faces have also expanded to include terrorist groups, 
insurgencies, and innovative competitors who seek to defeat our 
existing technical advantages. I believe the Department needs science 
and technology programs that respond to current, emerging, and future 
threats of all types.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Department's long-term research 
efforts?
    Answer. I have not had the opportunity to review the Department's 
planned technology investments in detail and I understand there are a 
number of reviews in progress that could shape the future direction of 
the Department. If confirmed, I would carefully review all technology 
funding portfolios in light of the results of these reviews in order to 
assess whether the Department's funding targets and priorities are 
aligned with its strategic direction.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Department is making adequate investments in its 
basic research programs?
    Answer. If confirmed, I would work with the DDR&E and the military 
Services and agencies to assess the adequacy of the Department's 
investments in basic research. There are a number of metrics available 
to assess whether the Department is making an adequate investment in 
basic research. Metrics to consider include: growth or decline in real 
dollars of the basic research program; change in number of projects; 
proportion of DOD-funded researchers in key science disciplines; trends 
in the number of patents that result by field, and number of students 
supported by the basic research program investments.
    Question. Do you feel that there is sufficient coordination between 
and among the science and technology programs of the military Services 
and defense agencies?
    Answer. I am aware that there are coordination mechanisms in place 
for the Department's S&T program. If confirmed, I would look at this 
issue more closely in cooperation with the DDR&E to determine if 
current coordination is adequate. At this time I do not have the 
information to make an assessment of the adequacy of the existing 
coordination mechanisms.
    Question. What is the Department's role and responsibility in 
addressing national issues related to science, technology, engineering, 
and mathematics (STEM) education and workforce development?
    Answer. I believe that the Department should take a proactive role 
in ensuring that the Nation has an adequate STEM workforce. In addition 
to encouraging STEM workforce development through its research 
investments and education outreach efforts, I believe DOD needs to work 
closely with the Office of Science and Technology Policy, the National 
Science Foundation, and other Federal components concerned with 
science, engineering and mathematics education adequacy.
    Question. What steps if any would you take to support efforts to 
ensure that the Nation has the scientific and technical workforce 
needed for its national security technological and industrial base?
    Answer. I am aware of several activities within DOD, such as the 
National Defense Education Program and the National Security Science 
and Engineering Fellows program, that aim to expand the pool of 
scientists and engineers able to contribute to the national security 
technological and industrial base. If confirmed, I would work with the 
DDR&E to determine how well these programs and others like them meet 
the Department's science and technical workforce needs.
    Question. How would you use science and technology programs to 
better reduce technical risk and therefore potentially reduce costs and 
schedule problems that accrue in large acquisition programs?
    Answer. Science and technology programs, particularly in applied 
research and advanced development, can have a substantial impact on 
improving technological readiness, and thereby reduce technical risk. I 
believe there is an opportunity to expand the ties from these programs 
to large acquisition programs, particularly between Milestones A and B. 
If confirmed I will work with the DDR&E and the Service acquisition 
executives to ensure that this linkage is strengthened.
    Question. Do you feel that the science and technology programs of 
DOD are too near-term focus and have over emphasized technology 
transition efforts over investing in revolutionary and innovative 
research programs?
    Answer. I do not have the information to make this assessment at 
this time. If confirmed, I would review the balance between near- and 
far-term innovative research. The DOD S&T program should be balanced so 
there are opportunities for both a capabilities pull, responding to the 
warfighter's needs, and a technology push, responding to the promise of 
new technology. If confirmed, I would work with the DDR&E to ensure 
that this is the case.
    Question. Are you satisfied that the Department has a well 
articulated and actionable science and technology strategic plan?
    Answer. I have not had the opportunity to review the Department's 
existing science and technology strategic plans. If confirmed, I would 
work with the DDR&E and others to ensure the plans have clear and 
actionable guidance.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure and ethics 
requirements, to ensure that the Department can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. I believe any modern enterprise needs effective tools, to 
shape the workforce and attract the most capable people. This principle 
holds true for the Department. If confirmed, I would take all possible 
steps to ensure the Department is competitive; however I have not had 
the opportunity to review the Department's current efforts to recruit 
and retain high quality technical people so I am not in a position to 
recommend changes at this time.
    Question. The DDR&E has been designated as the Chief Technology 
Officer (CTO) of DOD.
    In your view, what is the appropriate role of the CTO of DOD?
    Answer. The role of the CTO of the Department is defined in the 
DDR&E charter. I understand that the charter defines the role of the 
DDR&E as the Principal Staff Assistant to the Under Secretary (AT&L) 
and the Secretary on all technical matters. As CTO, the DDR&E should 
provide guidance to shape the DOD S&T program and develop technology 
options for the Department. The CTO should also contribute 
significantly to ensuring that major acquisition programs are conducted 
with acceptable technological risk.
    Question. What authority should the DDR&E have over the Defense 
Advanced Research Projects Agency (DARPA)?
    Answer. My understanding is that as the Department's primary 
corporate research activity, DARPA reports to DDR&E. The DDR&E should 
have all authorities necessary to ensure DARPA is effective in meeting 
its mission, including budgetary authority and authority over selection 
of agency leadership.
    Question. What authority should the DDR&E have over other Service 
and Agency science and technology efforts?
    Answer. The DDR&E should provide oversight responsibilities of the 
Service and Agency programs, consistent with the DDR&E charter.
    Question. Do you see the need for any changes in organizational 
structure, workforce, or availability of resources to improve the 
effectiveness of the Office of the DDR&E?
    Answer. At this time I have no specific recommendations for 
changes. I believe science and technology is critical to maintaining 
military superiority across a broad range of crises and military 
operations. Ensuring the technological superiority of our Armed Forces 
requires a strong DDR&E. I am aware that the DDR&E has taken steps to 
strengthen his organization, and I look forward to working with the 
DDR&E on any additional efforts that are needed.
                          defense laboratories
    Question. What is your view on the quality of the DOD laboratories 
as compared to the DOE national laboratories, Federal laboratories, 
academic laboratories, and other peer institutions?
    Answer. I have no information that would allow me to make a valid 
comparison of the quality of these institutions. The DOD laboratories I 
have worked with employ a talented and mission-oriented workforce, and 
constitute an important Departmental resource for the Nation's national 
security. That said, I am certain improvements can be made. If 
confirmed, I would work with the DDR&E in examining the capabilities 
and long-term requirements of the DOD laboratories, and develop, with 
the Services, recommendations to enhance the capabilities of the DOD 
laboratories.
    Question. What metrics will you use, if confirmed, to evaluate the 
effectiveness, competitiveness, and scientific vitality of the DOD 
laboratories?
    Answer. The effectiveness, competitiveness, and scientific vitality 
of the DOD laboratories could be gauged by a combination of factors, 
including external review of their research programs and the Service 
parent organizations' assessment of their effectiveness in meeting 
Service requirements and other needs. These in turn are influenced by 
the ability to attract and retain a talented workforce, and the 
adequacy and robustness of their physical infrastructure. I believe 
collaboration with universities, industry, and other laboratories also 
constitute an important contributor and measure of our laboratories' 
effectiveness in fostering and recognizing world class research and 
development. The single most important factor, however, would be the 
laboratories success in developing and transitioning technologies, by 
whatever mechanism, to our warfighters.
    Question. What steps if any will you take, if confirmed, to 
increase the mission effectiveness and productivity of the DOD 
laboratories?
    Answer. At this time I do not have the information necessary to 
make specific recommendations. If confirmed, I would work with the 
DDR&E to ensure that DOD Labs operate at maximum effectiveness and 
productivity.
    Question. Do you see value in enhancing the level of technical 
collaboration between the DOD laboratories and academic, other Federal, 
and industrial scientific organizations?
    Answer. Yes. The effectiveness and competitiveness of our 
laboratories can only be helped by enhanced technical collaboration 
with other research and development organizations.
    Question. Do you feel that past investments in research equipment; 
sustainment, repair and modernization; and facility construction at the 
DOD laboratories have been sufficient to maintain their mission 
effectiveness and their standing as world class science and engineering 
institutions?
    Answer. I do not have the information that would allow me to make 
this assessment at this time. If confirmed, I would work with the DDR&E 
to understand whether the Department's investments in the DOD 
laboratories have been adequate.
                                 darpa
    Question. Has DARPA struck an appropriate balance between 
investments in near-term technology programs that are tied to current 
battlefield needs and investments in longer term, higher risk, and 
revolutionary capability development?
    Answer. From my previous years in the Pentagon, I am very much 
aware of the critical role DARPA has in developing new technologies and 
capabilities for the Department's warfighters and weapons systems, as 
well as for the Nation. I do not currently have insight into DARPA's 
investment balance between near- and far-term technologies, but if 
confirmed, I would work with the DDR&E to ensure that DARPA continues 
to meet the far reaching technology needs of DOD.
    Question. Do you believe that DARPA has adequately invested in the 
academic research community?
    Answer. I do not have current insight into the DARPA investment 
portfolio, so I have no real basis upon which to assess if DARPA is 
adequately invested in the academic research community. I do believe 
that a sound DOD S&T program invests in a balanced supplier base--
including internal DOD laboratories, industry, and universities.
    Question. What are the major issues related to DARPA investments, 
management, and research outcomes that you will seek to address?
    Answer. If confirmed, I would work with the DDR&E to investigate 
the current DARPA investments, management, and research outcomes to 
determine which, if any, issues need to be addressed. I do not 
currently have sufficient information to make an evaluation.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
DOT&E in ensuring the success of the Department's acquisition programs?
    Answer. The independence of the DOT&E is an important aspect of 
ensuring the Department's acquisition programs are realistically and 
adequately tested in their intended operational environment. I am aware 
of concerns that testing can be perceived as creating additional cost 
and delays in delivering capability, especially in the context of 
pressing real world operations. If confirmed, I would seek the advice 
of the DOT&E on testing and evaluation issues as a partner in the 
acquisition process, while allowing for the necessary independent 
viewpoints.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. In general, I believe contractors are an important and 
integral part of the test and evaluation process during system 
development. However, in the past, implementation of acquisition reform 
the Department may have delegated too much of the early developmental 
test and evaluation responsibility to the contractors without adequate 
Government participation or oversight. If confirmed, my emphasis would 
be on integrating contractor and government test efforts to ensure that 
the Department's products in development are adequately and efficiently 
tested and that test results provide a reliable indicator of program 
progress toward meeting requirements.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process? If confirmed, how will you work to ensure 
that all equipment and technology that is deployed to warfighters is 
subject to appropriate operational testing?
    Answer. I believe that rapid fielding requirements require rapid 
performance from the entire acquisition team, including the test and 
evaluation community. With a rapid fielding requirement, it is 
necessary to adjust the scope and amount of testing to address the key 
issues and risks that affect safety and the system's use in combat and 
to gain early insights into the capabilities and limitations of the 
system being acquired. In rapid fielding, particularly of commercial 
items, the focus needs to be on understanding what is being bought and 
whether it is acceptable, not whether the system meets a set of rigid 
requirements. If confirmed, I would work with all stakeholders to 
ensure test and evaluation processes support rapid fielding without 
delaying our response to these urgent requirements a moment more than 
is absolutely necessary.
    Question. Do you believe that the developmental testing 
organizations in DOD and the military Services are adequate to ensure 
an appropriate level of developmental testing, and testing oversight, 
on major defense acquisition programs?
    Answer. I have not had the opportunity to review the adequacy of 
the Department's testing resources. If confirmed I would work with the 
DOT&E, the Director of Developmental Testing, the Service Acquisition 
Executives, and others to assess the adequacy of existing and planned 
test resources.
    Question. The National Defense Authorization Act for Fiscal Year 
2003 included several provisions to improve the management of DOD test 
and evaluation facilities.
    Are you satisfied with the manner in which these provisions have 
been implemented?
    Answer. I understand the National Defense Authorization Act for 
Fiscal Year 2003 led to the establishment of the Defense Test Resource 
Management Center (TRMC) to plan for and assess the adequacy of the 
Major Range and Test Facility Base (MRTFB). This office leads 
developing the Department's Strategic Plan for T&E Resources and 
certifies the adequacy of Service and Agency Test and Evaluation 
budgets. If confirmed, I would consult with the TRMC Director and 
review the adequacy of the Department's responses to these legislative 
mandates.
    Question. Do you believe that the Department should take any 
additional steps to improve the management of its test and evaluation 
facilities?
    Answer. At this time I am not aware of any additional steps that 
should be taken, however, I have not had the opportunity to review the 
current situation. If confirmed, I would consult with the Department's 
stakeholders and assess any additional steps necessary to improve 
management of T&E facilities.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate them becomes 
more difficult. Some systems-of-systems cannot be tested as a whole 
until they are already bought and fielded.
    Are you concerned with DOD's ability to test these new types of 
systems?
    Answer. Absolutely, testing and developing software-intensive 
programs in a net-centric, systems-of-systems (SoS) environment is a 
challenge.
    Question. What steps, if any, do you believe the Department should 
take to improve its test and evaluation facilities to ensure adequate 
testing of such systems?
    Answer. I do not have sufficient information to make a 
recommendation at this time.
                       ballistic missile defense
    Question. When it was created in 2002, the Missile Defense Agency 
(MDA) was exempted from normal acquisition rules and processes in order 
to field an initial set of missile defense capabilities on an expedited 
basis. That fielding has now taken place, although numerous upgrades 
and corrections are being implemented. Each of the elements of the 
Ballistic Missile Defense System (BMDS) would normally meet the 
criteria for a Major Defense Acquisition Program (MDAP), but none of 
them has been managed as an MDAP. Furthermore, for most of MDA's 
existence, all its programs were funded with Research, Development, 
Test, and Evaluation (RDT&E) funds, even for non-RDT&E activities.
    What management and acquisition changes or improvements if any do 
you believe are warranted for the ballistic missile defense programs?
    Answer. I have not had an opportunity to review the ballistic 
missile defense programs and am not in a position to recommend any 
changes or improvements.
    Question. Do you believe that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics should have the same 
responsibilities relative to the ballistic missile defense acquisition 
programs as for all other MDAPs?
    Answer. I have not had an opportunity to review this issue. At this 
point, however, I see no reason why the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, should not have the same 
responsibilities for the ballistic missile defense programs as for all 
MDAPs.
    Question. If confirmed, what steps if any would you plan to take to 
ensure that the ballistic missile defense programs of DOD follow sound 
acquisition and management practices and processes?
    Answer. I am not adequately familiar with current practices at this 
time to make an assessment of their effectiveness
    Question. For many years DOD and Congress have agreed on the 
principle that major weapon systems should be operationally effective, 
suitable, survivable, cost-effective, affordable, and should address a 
credible threat.
    Do you agree that any ballistic missile defense systems that we 
deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes.
    Question. If confirmed, what steps if any would you take to ensure 
that the BMDS and each of its elements meet these criteria?
    Answer. Rigorous and realistic testing of missile defenses is 
imperative. I understand that the Missile Defense Agency presently is 
executing a plan which includes the use of a Development/Operational 
Testing approach that allows the U.S. Strategic Command warfighter 
community (which includes all Combatant Commanders) and all the Service 
Operational Test Agencies to be integral parts of the test program. If 
confirmed, I would need to review these plans and the proposed test 
activities to determine whether additional steps or other emphases are 
necessary or appropriate.
    Question. Today, there are many hundreds of short- and medium-range 
ballistic missiles that can reach forward-deployed U.S. military 
forces, allies, and other friendly nations. A Joint Staff study, the 
Joint Capabilities Mix study, has repeatedly concluded that the United 
States needs about twice as many Standard Missile-3 and Terminal High 
Altitude Area Defense interceptors just to achieve the minimum 
inventory needs of regional combatant commanders to defend against such 
threats.
    Do you agree that U.S. missile defense efforts should be 
prioritized on providing effective defenses against existing ballistic 
missile threats, especially the many hundreds of short- and medium-
range ballistic missiles that are currently within range of our 
forward-based forces, allies, and other friendly nations?
    Answer. If confirmed, I would review the balance among the elements 
of the ballistic missile defense program in light of the results of 
ongoing Department strategic reviews and take action to influence plans 
accordingly based on the results of those reviews.
    Question. What do you believe should be the appropriate role of the 
combatant commanders and the military in determining requirements, 
force structure, and inventory levels for ballistic missile defense 
forces?
    Answer. Combatant commanders are the ultimate employers of the 
capabilities that the acquisition community delivers. As such, they 
should have a strong voice in determining the priorities for 
requirements, force structure, and necessary inventory levels. Title 10 
provides for the military departments to have responsibility to 
organize, train, and equip the forces employed by the combatant 
commands. MDA serves as the materiel developer for ballistic missile 
defenses and as such has a role in determining what capabilities are 
achievable and what inventory quantities are feasible at what cost. 
These three roles are interdependent. At this point in time I am not 
aware of any reason to adjust these roles.
    Question. For many years, Congress and DOD have agreed on the 
principle of ``fly before you buy,'' namely demonstrating that a weapon 
system will work in an operationally effective, suitable, and 
survivable manner before deciding to acquire and deploy such systems. 
This demonstration requires rigorous, operationally realistic testing, 
including independent Operational Test and Evaluation (OT&E), to 
provide an accurate assessment of how weapon systems will perform in 
combat conditions. The DOT&E has expressed concerns that the testing of 
the Ground-Based Midcourse Defense system has not been sufficient to 
provide confidence in its operational capability.
    Do you agree that ballistic missile defense testing needs to be 
operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to making decisions to 
deploy such systems?
    Answer. I agree that operationally realistic testing should be 
conducted prior to making decisions to deploy such systems.
    Question. If confirmed, what steps if any would you take to ensure 
that the BMDS, and each of its elements, undergoes independent 
operational test and evaluation?
    Answer. If confirmed, I will work with the Missile Defense Agency 
and the DOT&E to see what testing is planned to ensure that adequate 
tests are conducted.
    Question. The Missile Defense Agency has developed ballistic 
missile defense systems and capabilities and procured the initial 
inventories of missile defense element weapon systems. However, the 
military departments are notionally intended to procure, operate, and 
sustain these missile defense systems.
    What do you believe is the appropriate role for the military 
departments in the procurement, operation, and sustainment of ballistic 
missile defense systems, and at what point do you believe these systems 
should be transitioned and transferred to the military departments?
    Answer. I understand the Missile Defense Agency and the military 
departments are in the process of preparing overarching and element-
specific Memorandum of Agreements to define responsibilities and 
relationships in preparation for Ballistic Missile Defense System 
(BMDS) operations and deployment. If confirmed, I would work with the 
Missile Defense Agency and the military departments to ensure processes 
and policies are in place to accomplish the transition and transfer in 
a timely manner and within budget. At this point in time I have not had 
the opportunity to assess the most appropriate point at which 
responsibility for these systems should be transferred to the military 
departments.
               small business innovation research program
    Question. What do you see as the major successes and challenges 
facing the DOD Small Business Innovation Research (SBIR) program?
    Answer. I have not had an opportunity to review the SBIR program in 
depth and am not in a position to comment on its major successes and 
challenges. If confirmed, I would make this program a high priority.
    Question. What steps would you take to ensure that DOD has access 
to and invests in the most innovative small businesses?
    Answer. If confirmed, I would evaluate current efforts and look 
broadly for ways to improve our access to the research, ideas, and 
products of the most innovative small businesses.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(AT&L)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                        gulf range--oil drilling
    1. Senator Bill Nelson. Mr. Kendall, in a 2005 letter (see 
attached), Secretary of Defense Donald Rumsfeld stated that ``above 
surface and permanent structures are incompatible with military 
training'' in the Eastern Gulf of Mexico (the ``Gulf Range Complex''). 
Given the increases in the lethality and capability of today's weapons 
development programs, the scope of testing and evaluation evolutions 
requires more, not less, range space. What requirements are necessary 
to maintain the viability of America's largest testing and evaluation 
range in the Eastern Gulf of Mexico?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Kendall. I do not have enough information at this time, on 
either DOD's test ranges in general or the specific situation with 
regard to the Gulf Range Complex, to be able to answer this question 
definitively, but I am aware that there are concerns about the adequacy 
of DOD's test ranges. If confirmed, I will work closely with the 
Director, Test Resource Management Center, the Director, Developmental 
Test and Evaluation, and the Director Operational Test and Evaluation, 
to ensure the DOD has adequate testing resources consistent with the 
testing requirements for increasingly capable new weapons.


    2. Senator Bill Nelson. Mr. Kendall, how might future weapons 
development programs be impacted if the Gulf Range Complex is 
encroached upon by petroleum extraction?
    Mr. Kendall. I am not familiar enough with the issue to make an 
assessment. I do believe, however, that we will need to ensure that we 
strike the proper balance between our Nation's energy and national 
security goals and if confirmed I will work to ensure that DOD's needs 
are adequately taken into account in striking that balance.

    3. Senator Bill Nelson. Mr. Kendall, what data is available to show 
the number, type, and requirements necessary for the testing and 
evaluation mission?
    Mr. Kendall. I have not been privy to any data pertaining to the 
broad T&E mission or the specific mission of the Gulf Range Complex. If 
confirmed, I would examine the available data on the requirements for 
the testing and evaluation mission to assess its adequacy and 
implications.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                         kodiak launch complex
    4. Senator Begich. Mr. Kendall, if confirmed, you will have purview 
over the adequacy of existing and planned test resources for the 
Department of Defense (DOD). Kodiak Launch Complex (KLC) in Alaska was 
built in response to Missile Defense Agency (MDA) test resource 
requirements for Ground-Based Midcourse Defense. However, it has 
recently come to my attention that MDA plans to terminate a long 
standing operations and sustainment contract with KLC, thereby 
jeopardizing the viability of the facility. KLC is a national treasure 
that has the capabilities to support a host of DOD customers requiring 
launch capability. I understand designation as a Major Range and Test 
Facility Base (MRTFB) would ensure KLC had adequate sustainment dollars 
so it could continue serving its customer in a cost-effective, 
efficient manner. I encourage you to consider designating KLC as a 
MRTFB. If confirmed as the Deputy Under Secretary of Defense for 
Acquisition and Technology, will you review recent decisions that are 
negatively impacting national test assets like KLC?
    Mr. Kendall. If confirmed, I will review all national test assets 
within my purview and the recent decisions impacting them, including 
those impacting the KLC.

                          acquisition process
    5. Senator Begich. Ms. Fox and Mr. Kendall, does the acquisition 
process need to be overhauled DOD-wide?
    Mr. Kendall. I understand that the DOD has recently substantively 
revised and improved the policies and procedures that govern the 
Department's acquisition system and that other changes are in progress. 
Some of those policy changes are included in DOD Instruction 5000.02, 
Operation of the Defense Acquisition System, issued in December 2008. 
In addition I understand that changes responding to the direction in 
the Weapon Systems Acquisition Reform Act of 2009 are in place or 
underway. At this time I am not in a position to make a judgment as to 
whether a DOD wide overhaul is needed. If confirmed, I would ensure 
that all acquisition policies and procedures are closely monitored to 
ensure objectives are being achieved and to identify any additional 
needed changes. My view at this time is that the DOD should fully 
implement and evaluate the impact of these recent changes before 
considering whether another major DOD-wide overhaul is needed.

    6. Senator Begich. Mr. Kendall, should DOD acquisition programs be 
a multi-year?
    Mr. Kendall. I believe that the use of multi-year procurement 
should be dependent on the circumstances of each program. Multi-year 
procurements can offer savings for the Department and the taxpayer 
through improved economies in production processes, better use of 
industrial facilities, and a reduction in administrative processing and 
complexity. Multi-year procurements would generally not be appropriate 
if projected savings are insignificant and if future order quantities 
are uncertain. If confirmed, I would support application of multi-year 
contracting when properly justified and authorized by law.

    7. Senator Begich. Mr. Kendall, can you give me an example of a 
civilian sector technology that should be leveraged?
    Mr. Kendall. There are many examples of commercial technology that 
DOD can leverage. Commercial items--such as software, information 
technology, microcircuits and related electronic devices--are already 
embedded in many defense-unique applications including some of the 
Department's most highly advanced systems. Cutting-edge work in many 
areas of critical importance to the Department, including work on 
computer and communications technology, is being done in the private 
sector. In areas like these, where commercial industry drives much of 
the innovation and pays for the bulk of the research and development, 
the Department should acquire the best available technology and either 
employ it directly or militarize it to meet unique military needs. I 
believe this can be done at a fraction of the time and cost it would 
take if the Department tried to develop the technology itself and that 
the DOD should be aggressively looking for opportunities to leverage 
commercial technology.

                           contract oversight
    8. Senator Begich. Mr. Kendall, should DOD or the unified 
commanders provide oversight and manage contractors on the battlefield?
    Mr. Kendall. I believe that there are important roles for the 
Office of the Secretary of Defense (OSD), DOD agencies, military 
Services, and the combatant commanders in oversight and management of 
contracts and of contractors on the battlefield. I understand that 
USD(AT&L) develops policy and provides guidance and tools for the 
management and overall oversight of contracts and contractors 
supporting contingency operations. I also understand that the 
management of DOD contracts flows through the contracting organization, 
which may be a DOD agency, a Service organization, a specific command 
organization or a non-DOD organization such as the Department of State. 
At the operational level, however, combatant commanders currently play, 
and in my view should continue to play, a critical role in formulating 
and enforcing policies and procedures governing the conduct of all 
contractor personnel in the areas of operation under their control.

                           contract awarding
    9. Senator Begich. Mr. Kendall, should DOD review the awarding of 
contracts as they relate to large defense contractors and small 
business, minority- and women-owned businesses?
    Mr. Kendall. I understand that Federal Acquisition Regulations 
require contracting officers to afford small businesses (including 
minority- and women-owned small businesses) maximum practicable 
opportunities to participate in acquisitions as prime contractors and 
as subcontractors. In my opinion, DOD should review the implementation 
of this policy, however, I am not aware of the degree to which DOD 
currently reviews the awarding of contracts to small business, minority 
and women owned businesses. If confirmed, I would assess the current 
review procedures to determine their adequacy.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                 acquisition risk 20 years ago and now
    10. Senator McCain. Mr. Kendall, you have a lot of experience with 
DOD acquisition stretching back to the 1980s and, as the Director of 
Tactical Warfare Programs in OSD, you were a witness to one of 
industry's and DOD's most spectacular--and expensive--failures, the 
Navy's A-12 Avenger program, which continues in litigation to this day. 
Looking back on the systemic problems that led to the demise of the A-
12, what improvements in DOD and Service acquisition systems that would 
prevent another A-12 have been implemented, and, perhaps more 
importantly, what vulnerabilities still exist?
    Mr. Kendall. In my opinion, the A-12 was a ``perfect storm'' of 
acquisition mistakes. The list of mistakes would include the following: 
it was a fixed-price development contract for an ambitious and risky 
development program with options for not-to-exceed initial production 
lots that in theory, but not practice, placed all the risks of 
shortfalls in performance on the contractor; to my knowledge, there 
were no competitive risk reduction prototypes or focused technology 
maturation efforts prior to entering Engineering and Manufacturing 
Development; the schedule and cost assumptions were very aggressive; 
technical performance margins were inadequate; the acquisition strategy 
was that two primes would form a joint venture for the development 
program and then compete for production--a situation that discouraged 
cooperation; the contractors profit model, and their willingness to 
absorb losses in the development program, depended on the Government 
procuring large quantities of aircraft, an assumption that quickly 
changed as the cold war came to an end; the program was initially a 
highly classified ``black program'' which limited external oversight; 
and my understanding is that problems within the program were concealed 
to ``protect'' the program from budget cuts and closer scrutiny, 
preventing early corrective action.
    I would like to be confident that the changes of the last 20 years 
guarantee that none of these problems could occur again, but I am not 
in a position to make that statement. I understand there have been a 
number of improvements in DOD acquisition policies and procedures over 
the last 20 years, most recently the new DOD 5000.2 acquisition 
regulation and the changes being implemented under the Weapons System 
Acquisition Reform Act. That DOD and Congress are still searching for 
ways to more effectively manage defense acquisition programs and that 
the DOD continues to encounter problems in cost, schedule, and 
performance are strong indicators that more action is needed. If 
confirmed, I would work to implement the changes that have been 
initiated, to assess their effectiveness, to identify more 
opportunities for improvement, and to implement those opportunities. It 
is very clear to me that we still have more to do to improve DOD 
acquisition planning and execution, even if DOD never experiences a 
failure as dramatic as the A-12 again.

    11. Senator McCain. Mr. Kendall, considering the current 
authorities and responsibilities of the Under Secretary and Deputy 
Under Secretary for Acquisition and Technology, please describe how you 
and your OSD team would be able to detect an acquisition program in 
trouble and take corrective measures . . . or can a debacle like the A-
12 happen again?
    Mr. Kendall. At this time, I believe that the current authorities 
and responsibilities of the USD(AT&L) and the PDUSD(AT&L) are adequate 
to permit the actions necessary to detect that a program is in trouble 
and take corrective action. I have not had an opportunity to assess how 
these authorities and responsibilities are currently being utilized and 
implemented and if more changes are needed. I believe that the most 
recent version of DOD Instruction 5000.02 is designed to ensure that 
acquisition programs are set up initially for success, that problems 
are proactively identified, and appropriate changes made as required. 
Similarly the recent Weapons Systems Acquisition Reform Act provides a 
number of measures designed to prevent or detect and correct problems 
and to discipline the system to avoid debacles like the A-12. If 
confirmed, I would work to ensure that these changes and other measures 
are implemented effectively and to identify any other actions or 
policies that might be required to prevent problems, identify them when 
they occur, and to ensure timely corrective action.

                        fixed-price contracting
    12. Senator McCain. Ms. Fox and Mr. Kendall, we in this committee 
and DOD have pursued initiatives designed to reduce development and 
technological risks associated with major weapons programs so as to 
maximize the use of fixed price-type contracts. What do you think about 
the feasibility of greater use of fixed-price contracts, and how would 
you evaluate the Department's commitment or ability to move towards use 
of more fixed price-type contracts (and less cost-reimbursable 
contracts) to buy major weapons systems?
    Mr. Kendall. I believe that there are opportunities for greater use 
of fixed-price contracting, but that we should only use fixed price 
contracts when the risk allocated to the contractor is reasonable. More 
specifically, I think that when we have a thorough understanding of our 
requirements and can communicate them clearly, when the needed 
technologies are mature, when we have a solid design foundation, and 
when costs and schedules are reasonably predictable, then we have the 
basis for considering a fixed-price development or production contract.

                        rapid acquisition reform
    13. Senator McCain. Mr. Kendall, at his confirmation hearing last 
March, Under Secretary of Defense Ashton Carter testified that, 
particularly in the context of ongoing combat operations in theater, he 
considered issues with the rapid acquisition process to be a top 
challenge facing the acquisition community today. Do you agree with 
that view? If so, why?
    Mr. Kendall. I agree with Dr. Carter that rapid acquisition remains 
a top challenge. Operations Iraqi Freedom and Enduring Freedom have 
clearly demonstrated the importance of having specific departmental 
structures capable of rapidly responding to urgent warfighting needs. 
My view is that the time consuming processes associated with the formal 
acquisition system are not compatible with meeting urgent operational 
needs. If confirmed, rapid acquisition will be a matter of the highest 
priority for me.

    14. Senator McCain. Mr. Kendall, in the context of rapid 
acquisitions, do you see value in a more streamlined path by which the 
Department can procure military-purpose items that require no 
development by the government, and that can, therefore, be acquired on 
firm fixed-price basis?
    Mr. Kendall. I definitely see value in the development of a 
streamlined path for rapid acquisition and in that context, I believe 
there will be opportunities to employ fixed-price contracts when we can 
clearly state our requirements and those requirements can be satisfied 
by nondevelopmental items or items for which development is limited, 
straightforward, and low risk.

    15. Senator McCain. Mr. Kendall, might such a path, particularly 
when coupled with competition, incentivize smaller contractors to 
develop relevant technologies on their own in the shortest time 
possible at the most reasonable cost to the taxpayer and help terminate 
seemingly endless, budget-busting development programs, which preclude 
rapidly fielding needed capability to the warfighter?
    Mr. Kendall. I agree that a rapid acquisition path can provide 
incentives for small contractors to develop relevant technologies in a 
comparatively short time compared to the normal acquisition process, 
particularly in a competitive situation. This approach, however, is 
best suited for products that are not inherently highly complex designs 
of new capabilities that require longer and more disciplined 
development programs. Some programs, by their very nature, require 
substantial development investments spanning a period of years. I 
believe that rapid acquisition programs, particularly in wartime, can 
provide great value to DOD, but they can't always substitute for more 
complex and highly structured major weapon systems programs. I'm not in 
a position to comment on the best balance between rapid acquisition 
programs and more traditionally structured programs or the extent to 
which rapid acquisition could displace traditionally structured 
programs, but I do see a need for both types of programs.

                military purpose nondevelopmental items
    16. Senator McCain. Mr. Kendall, while the Department should always 
acquire commercial items and commercially available off-the-shelf items 
of supply when those items fulfill requirements, do you agree that in 
some cases attempts to adapt commercial items for military purposes 
through military research and development funding has resulted in 
program cost problems, excessive delays, and even terminations? The 
Armed Reconnaissance Helicopter is one example.
    Mr. Kendall. I'm not familiar with the details of the Armed 
Reconnaissance Helicopter program or of other cases in which DOD has 
attempted to modify commercial items to meet military needs, but I have 
no doubt that these types of problems have occurred. In general, I 
believe that expanding the use of commercial items in DOD systems, 
including using commercial platforms as the basis for military 
products, can offer opportunities for reduced cycle time, faster 
insertion of new technology, lower life cycle costs, greater 
reliability and availability, and support from a robust industrial 
base. However, I also believe that no matter what the acquisition 
approach chosen by DOD, there is the potential to underestimate risks, 
costs, and schedules and to impose requirements that lead to cost 
problems, delays, and terminations. If confirmed, I would work to 
ensure that DOD selects the most effective approach to meeting its 
requirements and that the plans to field the desired capability are 
realistic, whatever the acquisition approach.

    17. Senator McCain. Mr. Kendall, in the context of traditional 
procurements, what are your views on items that are developed by 
industry without any Government funding that are determined to meet a 
military requirement but do not necessarily meet the definition of 
commercial items?
    Mr. Kendall. At this time, I am not aware of any reason why items 
like those described shouldn't be acquired by DOD or couldn't be 
acquired under existing policies. If confirmed, I will assess whether 
there are obstacles to procuring noncommercial items developed by 
industry without Government funding.

    18. Senator McCain. Mr. Kendall, outside the context of rapid 
acquisitions, do you believe the Department should explore ways that do 
not involve Government funding for research and development to 
encourage industry to produce nondevelopmental items that could meet 
military needs?
    Mr. Kendall. In my view, industry's independent research and 
development efforts can offer critical and often unanticipated 
capabilities to DOD. I believe that the Department should be open-
minded about how nondevelopmental products could be acquired and used 
by the Armed Forces. Given the accelerating rate of innovation in the 
private sector and the internal capabilities of the defense industrial 
base, I also believe it is important to encourage efforts in this area. 
If confirmed, I would assess the steps DOD is currently taking to 
encourage industry to produce nondevelopmental items that meet military 
requirements in order to determine whether additional steps are 
appropriate.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions
                           tanker competition
    19. Senator Sessions. Mr. Kendall, following the previous 
competition, Boeing now has access to the Northrop/EADS team's pricing 
data. Do you feel that it is fair for Boeing to have such a strategic 
advantage?
    Mr. Kendall. In my opinion DOD should make every effort to ensure 
that all its competitive procurements are fair and open. Unfortunately, 
I do not have enough knowledge of the situation with regard to the data 
Boeing was provided to express an opinion on its impact or what might 
be done to correct any lack of fairness.
                                 ______
                                 
    [The nomination reference of Frank Kendall III follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 5, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Frank Kendall III, of Virginia, to be Deputy Under Secretary for 
Acquisition and Technology, vice James I. Finley, resigned.
                                 ______
                                 
    [The biographical sketch of Frank Kendall III, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Frank Kendall III
                               education
    Rensselaer Polytechnic Institute, Sept. 1966 to June 1967
    U.S. Military Academy, West Point, NY, 1967-1971, B.S., June 1971
    California Institute of Technology, Pasadena, CA, 1971-1973, MS, 
Aerospace
    Engineering, 1972, Aeronautical Engineer Degree, 1974
    Long Island University, C.W. Post Center, 1977-1980, MBA, June 1980
    Georgetown University Law Center, 2000-2003, J.D., Feb. 2004
                            emloyment record
    January 2008 to Present: Managing Partner, Renaissance Strategic 
Advisors, Arlington, VA.
    2004 to Present: Attorney, self employed, Falls Church, VA.
    1997 to Present: Private Consultant, self-employed, Falls Church, 
VA.
    1994-1996: Vice President of Engineering, Raytheon Co. Lexington, 
MA
    1994: Vice President, SAIC, McLean, VA
    1989-1994: Director of Tactical Warfare Programs, Office of the 
Secretary of Defense Washington, DC. (title changed at various points, 
``Acting'' Director, 1989 to 1991)
    1986-1989: Assistant Deputy Under Secretary of Defense for Defense 
Systems, Office of the Secretary of Defense, Washington, DC.
    1982-1999: U.S. Army Reserve; retired with the rank of Lieutenant 
Colonel
    1982-1986: U.S. Army Ballistic Missile Defense Systems Command, 
various civil service positions in engineering management and systems 
analysis
    1967-1982: Active Duty U.S. Army; left Active Duty with the rank of 
Captain (includes time as West Point Cadet, 1967-1971)
                           honors and awards
Military Awards, U.S. Army:
    Meritorious Service Medal with oak leaf cluster
    Army Commendation Medal
    National Service Medal
Federal Civilian Awards:
    Defense Distinguished Civilian Service Medal
    Secretary of Defense Meritorious Civilian Service Medal
    Presidential Rank Award of Distinguished Executive (SES)
    Presidential Rank Award of Meritorious Executive (SES)
    Army Commander's Award for Civilian Service
Other Awards:
    Defense Industrial Preparedness Association Gold Medal
    Rodney Smith Memorial Award for Excellence in Engineering (U.S. 
Military Academy)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Frank Kendall 
III in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frank Kendall III.

    2. Position to which nominated:
    Deputy Under Secretary of Defense (Acquisition and Technology), 
Department of Defense.

    3. Date of nomination:
    August 5, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 26, 1949; Pittsfield, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Eva Elizabeth Halpern.

    7. Names and ages of children:
    Scott McLeod Kendall, age 32; and Eric Sten Kendall, age 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Pittsfield High School, 1963-1966, H.S. Diploma, June 1966
    Rensselaer Polytechnic Institute, Sept. 1966 to June 1967
    U.S. Military Academy, West Point, NY, 1967-1971, B.S., June 1971
    California Institute of Technology, Pasadena, CA, 1971-1973, MS, 
Aerospace Engineering, 1972, Aeronautical Engineer Degree, 1974
    Long Island University, C.W. Post Center, 1977-1980, MBA, June 1980
    Georgetown University Law Center, 2000-2003, J.D., Feb. 2004

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1999 to Present: Private Consultant, self-employed, Falls Church, 
VA. Independent consultant to various defense contractors, government 
organizations, and Federally funded laboratories in the areas of 
technical management, program management, systems engineering, systems 
analysis, and strategic planning.
    2004 to Present: Attorney, self-employed, Falls Church, VA. Worked 
as a consultant on human rights issues and represented individual 
clients, almost entirely on a pro bono basis and primarily individual 
asylum cases.
    January 2008 to Present: Managing Partner, Renaissance Strategic 
Advisors, Arlington, VA. Partner in a small aerospace and defense 
consulting firm. The firm's work is in the areas of strategic planning, 
merger and acquisition support and support to start-up aerospace and 
defense companies.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1967-1982: Active Duty U.S. Army; left Active Duty with the rank of 
Captain
    1982-1999: U.S. Army Reserve; retired with the rank of Lieutenant 
Colonel
    1982-1986: U.S. Army Ballistic Missile Defense Systems Command, 
various civil service positions in engineering management and systems 
analysis
    1986-1989: Assistant Deputy Under Secretary of Defense for Defense 
Systems, Office of the Secretary of Defense, Washington, DC.
    1989-1994: Director of Tactical Warfare Programs, Office of the 
Secretary of Defense Washington, DC.
    1994-2004: Member and Vice Chairman, Defense Intelligence Agency 
Science Advisory Board
    1995-2004: Member, Army Science Board
    1995-2009: Consultant on the Defense Science Board on various 
studies
    1998 (approximate) Consultant on the Naval Studies Board

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Managing Partner, Renaissance Strategic Advisors, LLC, Arlington, 
VA (provides consulting services to a variety of aerospace and defense 
contractors or related businesses)
    Self-employed as a Private Consultant and Attorney at Law, sole 
proprietorships. (Inactive consulting agreements with Institute for 
Defense Analysis, SAIC, JSA Partners, Centra Technologies).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board Member, Amnesty International USA, New York, NY
    Board Member and Board Chair, Tahirih Justice Center, Falls Church, 
VA
    Associate member, Sigma Xi, Research Society
    Member, Phi Kappa Phi, Honor Society
    Member, American Bar Association
    Member, American Immigration Lawyers Association
    Member, Virginia Bar Association
    Member, New York State Bar Association
    Member, Virginia Trial Lawyers Association
    Member, Association of the U.S. Army
    Member, Navy League
    Member, Air Force Association
    Member, National Defense Industries Association
    Member, Association of Graduates, USMA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    No offices held.
    Participated as a volunteer in the Kerry and Obama campaigns, no 
formal affiliation or position.
    Participated the Democratic Voter Protection program in the 2004 
and 2008 elections as a volunteer.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


------------------------------------------------------------------------
                        Recipient                             Amount
------------------------------------------------------------------------
2008
  President
    Barack Obama
      Primary...........................................          $2,300
      General...........................................           2,117
 
  Senate
    Kay Hagen...........................................           1,000
    James Martin........................................           1,000
    Jeff Merkley........................................           1,000
    Ronnie Musgrove.....................................           1,000
    Jack Reed...........................................           1,000
    Jeanne Shaheen......................................           1,000
    Mark Warner.........................................           1,000
 
  House
    Patrick Murphy......................................             250
    Sharen Neuhardt.....................................             250
 
  Other
    Democratic National Com.............................           1,003
    Democratic Party of VA..............................           1,000
------------------------------------------------------------------------
2007
  House
    Judy Feder..........................................             250
    Patrick Murphy......................................             250
------------------------------------------------------------------------
2006
  Senate
    Sherrod Brown.......................................           1,000
    Maria Cantwell......................................           1,000
    Bob Casey...........................................           1,000
    Claire McCaskill....................................           2,000
    Jim Pederson........................................           2,000
    John Testor.........................................           1,000
    James Webb..........................................           2,000
    Sheldon Whitehouse..................................           1,000
 
  House
    Judy Feder..........................................             250
    Jim Moran...........................................             500
    Patrick Murphy......................................             250
 
  Other
    Democratic National Com.............................           1,250
------------------------------------------------------------------------
2005
  Other
    DSCC................................................             500
    Tim Kaine (VA Gov)..................................             250
------------------------------------------------------------------------
2004
  President
    John Kerry..........................................           2,000
 
  Senate
    Brad Carson.........................................           1,000
    Betty Castor........................................           2,000
    Tom Daschle.........................................           2,000
    Ken Salazar.........................................           1,000
 
  Other
    Democratic National Com.............................           6,000
    DSCC................................................           2,250
------------------------------------------------------------------------


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
Military Awards, U.S. Army:
    Meritorious Service Medal with oak leaf cluster
    Army Commendation Medal
    National Service Medal
Federal Civilian Awards:
    Defense Distinguished Civilian Service Medal
    Secretary of Defense Meritorious Civilian Service Medal
    Presidential Rank Award of Distinguished Executive (Senior 
Executive Service)
    Presidential Rank Award of Meritorious Executive (Senior Executive 
Service)
    Army Commander's Award for Civilian Service
Other Awards:
    Defense Industrial Preparedness Association Gold Medal
    Rodney Smith Memorial Award for Excellence in Engineering (U.S. 
Military Academy)
    Four year ROTC scholarship to Rensselaer Polytechnic Institute 
(used 1 year of scholarship before attending West Point)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Sentry Ballistic Missile Defense System'' with Mr. Tom 
Purdue, Journal of Defense Research (1982) (classified publication, 
best recollection of title)
    ``Exploiting the Military Technical Revolution; A Concept for Joint 
Warfare,'' Strategic Review (spring 1992)
    ``Defense Contractor and Government Relationships,'' RDA Magazine 
(1995) (approximate title and date)
    ``Drawing the Line: Three Case Studies in Procurement Ethics,'' 
Program Manager Magazine (July-August 1998)
    ``Reclaim American Values; Prisoner Treatment Hands Power to 
Enemies,'' with LTG Charles Otstott (Ret.), Defense News (April 16, 
2007)
    ``End Impunity for U.S. Contractors in Iraq'' Op Ed, The Topeka 
Capital Journal (August 10, 2007)
    Guantanamo Military Commissions Observer Bloq Postings for Human 
Rights First:

        ``Guantanamo: It All Seems So Normal'', Human Rights First 
        (April 9, 2008)
        ``They Clearly Never Met Any Military Attorneys'', Human Rights 
        First (April 11, 2008)
        I Will Leave in Your Hands the Camel and All That It Carries,'' 
        Human Rights First (April 11, 2008)
        ``If There are Any Policies Dealing With How We Are to Treat 
        and Handle Minors Who Are Captured, I Don't Care What You 
        Think-That's Discoverable,'' Human Rights First, (April 14, 
        2008)
        ``Not Quite the Thing to Do Here,'' Human Rights First (July 
        14, 2008)
        ``The Sandman and Alfred Hitchcock Come to Guantanamo,'' Human 
        Rights First (July 15, 2008)
        ``Doctors or Butchers, How Would I Know,'' Human Rights First 
        (July 16, 2008)
        ``The Constitution (chose one) Does/Does Not Apply at 
        Guantanamo,'' Human Rights First (July 17, 2008)
        ``Today's Score From Guantanamo; Constitution-1, No-
        Constitution 3'' Human Rights First (July 18, 2008)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    NDIA Test and Evaluation Conference, Power Point presentation 
``Been There, Done That; or How I Learned to Love Defense Acquisition'' 
March 8, 2005.

    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Frank Kendall III.
    This 1st day of October, 2009.

    [The nomination of Frank Kendall III was reported to the 
Senate by Chairman Levin on December 2, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 4, 2010.]
                              ----------                              

    [Prepared questions submitted to Gladys Commons by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the war-fighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. Goldwater-Nichols has effectively enhanced civilian control 
and delineated many important relationships within the Department of 
Defense (DOD). At this time, I am not aware of the need for any changes 
to Goldwater-Nichols. If confirmed, however, any changes that I 
identify will be forwarded to the Under Secretary and the Secretary of 
the Navy.
duties of the assistant secretary of the navy (financial management and 
                              comptroller)
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Financial Management and 
Comptroller)?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is responsible for all financial management activities 
and operations within the Department of the Navy. This position is also 
responsible for advising the Secretary of the Navy on all financial 
management matters.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 30 years of comptroller and financial 
management experience within DOD. I first began working in the 
Department in 1971 as a Budget Analyst within the Office of Naval 
Research. Over the next 30 years, I served as a Supervisory Budget 
Analyst at Naval Facilities Engineering Command, a Budget Officer 
within Headquarters Marine Corps, and the Comptroller of the Marine 
Corps Research, Development and Acquisition Command. In 1994, I became 
the Principal Deputy Assistant Secretary of the Navy for Financial 
Management and Comptroller. During this tenure, I served for 7 months 
as Acting Assistant Secretary of the Navy for Financial Management and 
Comptroller. From 2002-2004, just prior to my retirement from Federal 
Service, I served as comptroller of Military Sealift Command.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the Assistant 
Secretary of the Navy (Financial Management and Comptroller)?
    Answer. While I have relevant experience for the position, I 
believe learning and the need for improvement are lifelong, continuing 
processes. If confirmed, I will increase my knowledge by learning more 
about current specific issues regarding the Department's budget through 
discussions with subject matter experts and by studying existing 
documents.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Navy (Financial Management and 
Comptroller)?
    Answer. I believe that there are three major challenges facing the 
next Assistant Secretary of the Navy (Financial Management and 
Comptroller). First, the next Assistant Secretary will need to balance 
the budget while ensuring that the requirements and systems needed by 
the warfighter are provided during two ongoing military conflicts. 
Second, the Assistant Secretary will need to ensure that accurate, 
reliable and timely financial information is available to leadership to 
assist during critical periods of decisionmaking. Third, the Assistant 
Secretary will need to continue ongoing efforts to recruit, train, and 
develop the financial management workforce.
    Question. Assuming you are confirmed, what plans do you have to 
address these challenges?
    Answer. In order to ensure that these challenges are met, if 
confirmed, I will work closely with the Under Secretary of Defense 
(Comptroller), the Secretary and Under Secretary of the Navy, the Chief 
of Naval Operations and the Commandant of the Marine Corps.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Navy (Financial Management and Comptroller)?
    Answer. If confirmed, my priorities will be three-fold. First, I 
will aim to provide accurate, reliable, and timely financial management 
information to the Department's military and civilian leadership. 
Second, I will ensure that the Department remains a good steward of the 
taxpayer's dollars. Third, I am committed to the continual development 
of a professional financial management workforce.
                             relationships
    Question. What is your understanding of the relationship between 
the Assistant Secretary of the Navy (Financial Management and 
Comptroller) and each of the following:
    The Secretary of the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is the principal assistant and advisor to the 
Secretary and Under Secretary of the Navy on fiscal and budgetary 
matters. The Assistant Secretary of the Navy (Financial Management and 
Comptroller) also performs such other duties as the Secretary or Under 
Secretary may prescribe.
    Question. The Under Secretary of the Navy.
    Answer. As stated above, the Assistant Secretary of the Navy 
(Financial Management and Comptroller) serves as a principal assistant 
and advisor to the Under Secretary of the Navy.
    Question. The other Assistant Secretaries of the Navy
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) works directly with the other Assistant Secretaries of 
the Navy to ensure that the financial management activities of their 
respective organizations are supported.
    Question. The General Counsel of the Navy
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must work closely with the General Counsel of the Navy 
to ensure that all fiscal law requirements for the Department are 
satisfied.
    Question. The Chief of Naval Operations.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) should ensure that the Chief of Naval Operations has 
the financial support necessary to execute his duties and 
responsibilities.
    Question. The Commandant of the Marine Corps.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) should ensure that the Commandant of the Marine Corps 
has the financial support necessary to execute his duties and 
responsibilities.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must work closely with the Under Secretary of Defense 
(Comptroller) to ensure the appropriate development and execution of 
the budgetary and fiscal policies and initiatives of the President, the 
Secretary of Defense, and Secretary of the Navy.
    Question. The Deputy Chief Management Officer of the Department of 
Defense.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must work with the Deputy Chief Management Officer of 
the Department of Defense to ensure the implementation of business 
systems architecture and to help identify business process 
improvements.
    Question. The Assistant Secretaries for Financial Management of the 
Army and Air Force.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) must work closely with these individuals to ensure 
that decisionmaking at all levels reflects the strongest cooperation 
possible between the military Services.
    Question. The Chief of Legislative Affairs for the Department of 
the Navy.
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) should work closely with the Chief of Legislative 
Affairs to ensure that all budgetary and legislative matters are 
properly conveyed to the appropriate Members of Congress.
         civilian and military roles in the navy budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Navy (Financial 
Management and Comptroller) and the senior military officers 
responsible for budget matters in Office of the Chief of Naval 
Operations and Headquarters, Marine Corps, in making program and budget 
decisions, including the preparation of the Navy Program Objective 
Memorandum, the annual budget submission, and the Future Years Defense 
Program?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is responsible for all budget matters within the 
Department. The senior military officers, including the Director of the 
Office of Budget, serve as principal military advisors to me in my 
capacity to oversee the development of the Department's Program 
Objective Memorandum.
                        business transformation
    Question. DOD recently established the Business Transformation 
Agency (BTA) to strengthen management of its business systems 
modernization effort.
    What is your understanding of the mission of the BTA and how its 
mission affects the responsibilities of the Assistant Secretary of the 
Navy (Financial Management and Comptroller)?
    Answer. It is my understanding that the BTA provides the framework 
for DOD's future business environment. I understand that the Department 
of the Navy is allowed to execute plans within this framework and has 
the flexibility to support unique mission requirements as necessary. 
The overall goal to improve business operations throughout DOD should 
support Department of the Navy efforts to provide decisionmakers 
accurate, reliable, and timely financial information.
    Question. What is your understanding of the role of the Assistant 
Secretary of the Navy (Financial Management and Comptroller) in 
providing the Navy's views to the BTA, or participating in the 
decisionmaking process of the BTA, on issues of concern to the Navy?
    Answer. The Departments are participants in the governance process, 
as well as key implementers. The Assistant Secretary should be involved 
in establishing and implementing DOD-wide financial management 
standards and improvement programs that affect the Department of the 
Navy. If confirmed, I would be an active participant, providing input 
to support the development of improved Department of the Navy business 
operations.
    Question. Section 908 of the Duncan Hunter National Defense 
Authorization Act (NDAA) for Fiscal Year 2009 requires each of the 
military departments to establish an Office of Business Transformation 
to transform the budget, finance, accounting, and human resource 
operations of the military department.
    What is your understanding of the mission of the Navy Business 
Transformation Office and how its mission affects the responsibilities 
of the Assistant Secretary of the Navy (Financial Management and 
Comptroller)?
    Answer. My understanding of the mission of the Department of the 
Navy Business Transformation Office is that they are to improve the 
effectiveness and efficiency of the Department's business operations 
through optimizing its underlying end-to-end business process. While 
the overall responsibilities of the office would remain unchanged, the 
Assistant Secretary of the Navy (Financial Management and Comptroller) 
has the opportunity to leverage existing DON organizational processes 
and the integration of acquisition, finance and logistics functions to 
increase the effectiveness and efficiency of DON business operations. 
This will support on-going efforts to provide accurate, reliable and 
timely financial information and assist the Assistant Secretary of the 
Navy (Financial Management and Comptroller) in performing their 
statutorily authorized responsibilities.
    Question. What is your understanding of the role of the Assistant 
Secretary of the Navy (Financial Management and Comptroller) in the 
transformation of the budget, finance, and accounting operations of the 
Department of the Navy?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) is responsible for the budget, finance, and accounting 
operations of the Department of the Navy. If confirmed, I will work 
closely with the Department's civilian and military leaders to ensure 
that budget, finance, and accounting operations are considered in 
changes to DON business processes. I will provide leadership and advice 
in the financial management functional area and ensure that those 
efforts are aligned with DOD priorities to achieve auditable financial 
statements.
    Question. Do you believe that the organizational structure of the 
Department of the Navy is properly aligned to bring about business 
systems modernization and financial management improvements?
    If not, how do you believe the Department should be restructured to 
more effectively address this issue?
    Answer. Yes, I believe that it is. However, there have been many 
changes in the organizational structure since I retired in 2004. I need 
to be made more aware of these new structures and to see how they 
align.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and initiatives, problems with financial management 
and data continue.
    What do you consider to be the top financial management issues that 
must be addressed by the Department of the Navy over the next 5 years?
    Answer. During these difficult economic times, the top financial 
management issues will be the development of a balanced budget that 
meet the Department's warfighting priorities; ensuring the availability 
of accurate, reliable, and timely financial information; the capability 
to produce auditable financial statements; and continued recruitment, 
development, and training of the financial management workforce.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Navy?
    Answer. If confirmed, I would work closely with civilian and 
military leaders within the Department and the Office of the Secretary 
of Defense (OSD) (Comptroller) to ensure the allocation of sufficient 
resources to the Department's warfighting priorities. I would also 
continue ongoing efforts to improve financial management systems and 
processes to achieve auditable financial statements.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by DOD and the Department of the Navy?
    Answer. I am not currently aware of any private business practice 
that I would advocate for adoption. However, if confirmed, I will 
certainly be willing to consider any of the best financial management 
practices within the private sector, other well-run Federal or State 
Government agencies or the nonprofit sector to see if they could be 
adapted to the Department's processes.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Navy's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and anticipated results are being achieved?
    Answer. Some key performance measures to determine if the plans and 
initiatives are being implemented as intended and anticipated results 
are being achieved include timely distribution and allocation of funds, 
timely obligation of funds, funds balance with Treasury (net percent 
unreconciled), percent of invoices paid on time, timeliness of 
financial data (date of information), percent of vendor payments made 
electronically, interest penalties paid, etc. If confirmed, I would use 
these metrics along with the scheduled timelines included in the 
Department's Financial Improvement Plan to evaluate changes in the 
Navy's financial operations.
    Question. Section 1003 of the NDAA for Fiscal Year 2010 would 
establish an objective for DOD to ensure that its financial statements 
are validated as ready for audit by not later than September 30, 2017. 
The provision would require the Department to establish interim goals, 
including objectives for each of the military departments.
    What, in your view, would be a reasonable objective for the 
Department of the Navy to ensure that its financial statement is 
validated as ready for audit?
    Answer. I understand that the Department has a Financial 
Improvement Plan and is making progress toward achieving auditable 
financial statements. However, there remains a substantial amount of 
work to be done to improve our business systems and processes. There 
are also difficult issues that must be addressed, such as the valuation 
of major weapon systems and equipment. I have not had the opportunity 
to review the plan in detail and could not at this time predict a 
reasonable date for ensuring the auditability of the Department's 
financial statement.
    Question. What interim objectives do you believe the Department of 
the Navy should establish, to demonstrate measurable progress toward a 
financial statement that is validated as ready for audit?
    Answer. I am not currently in a position to recommend interim 
goals. I am confident that work is being performed within the 
Department to develop objectives which would help demonstrate 
measurable progress. If confirmed, I will review the objectives that 
have been prepared and determine whether they appear to be reasonable 
and effective at demonstrating measurable progress. My intention would 
be to adjust or recreate these objectives as appropriate.
    Question. What is the role of the Assistant Secretary of the Navy 
(Financial Management and Comptroller) in this effort?
    Answer. The Assistant Secretary of the Navy (Financial Management 
and Comptroller) provides the overall leadership within the Department 
to achieve auditable financial statements. However, the ability to 
produce auditable statements is influenced by all the business 
operations and processes within the Department. If confirmed, I will 
work with the civilian and military leadership, process owners and the 
OSD Comptroller to meet the requirement for auditable financial 
statements.
    Question. If confirmed, how will you work with the Chief Management 
Officer of the Department of the Navy and the Navy Business 
Transformation Office in this effort?
    Answer. The business practices within the Department are beyond the 
control of the Assistant Secretary of the Navy (Financial Management 
and Comptroller). However, these processes are critical to ensure an 
auditable financial statement. For this reason, if confirmed, I will 
work closely with the Chief Management Officer of the Department as 
well as the Navy Business Transformation Office.
               supplemental funding and annual budgeting
    Question. Since September 11, 2001, DOD has paid for much of the 
cost of ongoing military operations through supplemental 
appropriations, and the fiscal year 2010 budget included a full-year 
request for overseas contingency operations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. I believe that it is important to move away from the use of 
supplemental appropriations. All requirements for military operations 
should be included within the budget. Such a move is easier to perform 
in stable times. However, during times of conflict, when new and 
emergent requirements arise, this becomes very difficult. When these 
new requirements emerge, it is essential that we identify a funding 
mechanism to support these requirements.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by DOD?
    Answer. Yes. If confirmed, I will respect the views and 
prerogatives of the Department's oversight committees. As the 
Department has in the past, I will continue to work closely with the 
committee as necessary to achieve a resolution of the issues.
                      incremental funding of ships
    Question. Both the executive and legislative branches have 
traditionally followed a policy of full funding for major capital 
purchases such as ships. In recent years, the Department of the Navy 
has been using alternative funding methods for the purchase of ships, 
such as incremental funding in the shipbuilding account, or by the 
purchase of an initial ship of a class of ships through RDT&E funds, 
and thereby incrementally funding the lead ship.
    What is your opinion of these types of funding strategies and of 
the pros and cons of incrementally funding ship construction?
    Answer. The Office of Management and Budget and OSD (Comptroller) 
policies require full funding of programs when procured. I do not have 
sufficient insight into the alternative funding methods used by the 
Department in recent years. If confirmed, I will review the funding 
strategies in the shipbuilding accounts to ensure that they comply with 
fiscal law and OMB and OSD policy. I believe that funding Naval ship 
construction is an important challenge and if confirmed, will work 
within the Navy and with OSD (Comptroller) to identify funding 
strategies that would benefit the Department and the taxpayer.
      budgeting for the navy's next generation enterprise network
    Question. As part of its efforts to close out the Navy/Marine Corps 
Intranet (NMCI) contract, the Department of the Navy is planning to 
purchase infrastructure and a Government purpose rights license from 
the incumbent NMCI contractor. The Navy asked Congress for special 
authority to spread out these purchase costs over several years; 
however, one of the reasons that the Navy was unable to budget in 
advance for these expenses is that the Navy is only now completing 
negotiations on the price of these items.
    Why weren't the costs of infrastructure and a Government purpose 
rights license negotiated upfront on the NMCI contract, rather than 
waiting until this late in the contract?
    Answer. The NMCI acquisition strategy was developed almost 10 years 
ago. While development of the strategy was not under the purview of the 
Assistant Secretary of the Navy (Financial Management and Comptroller), 
I believe at the time it was based on prevailing best industry 
practices and the resultant lower cost to the Department and taxpayer. 
Under this strategy, the Department would adopt a commercial off-the-
shelf solution and would not have to facilitize and/or own equipment 
which would become obsolete because of the rapidly changing 
technological environment.
    Question. In your opinion, are there regulatory changes that should 
be made to prevent the Navy from repeating such occurrences and permit 
the Navy to budget for such expenses in advance?
    Answer. I do not believe regulatory changes are necessary. I 
believe the Department needs the flexibility to adopt best industry 
practices when they result in savings to the Department and the 
taxpayer.
           defense integrated military human resources system
    Question. To address pay and personnel record keeping, and other 
personnel management requirements, DOD is developing the Defense 
Integrated Military Human Resources System (DIMHRS), an integrated, 
joint military personnel and pay system envisioned for use by all the 
Services.
    What is your understanding of the status of the development and 
implementation of DIMHRS in the Department?
    Answer. I understand that DIMHRS is DOD's solution for integrated 
record keeping. However, I do not have detailed information concerning 
the status of its development and implementation. If confirmed, I will 
look into the status of DIMHRS development and implementation.
    Question. What is your understanding of the Navy and Marine Corps 
views of the pros and cons of implementing DIMHRS?
    Answer. I understand that there are many benefits associated with 
an integrated record system. However, I do not have sufficient 
knowledge to comment on the Navy and Marine Corps views concerning the 
implementation of DIMHRS. If confirmed, I will work closely with the 
civilian and military leaders of the Department regarding the 
development and implementation of DIMHRS.
                      personnel budget shortfalls
    Question. During fiscal year 2009, the Navy experienced significant 
shortfalls in its personnel accounts that required a reprogramming to 
overcome, as well as other stopgap measures taken to avoid Anti-
Deficiency Act violations, such as a reduction in advertising, a delay 
of new bonuses, a freeze of some civilian hiring, and a delay of new 
permanent change of station moves until the new fiscal year.
    In your opinion, has the Navy corrected the issues and revised the 
budget assumptions that gave rise to the personnel funding shortfall?
    Answer. At this time I do not know if the Navy has corrected the 
issues and revised the budget assumptions that gave rise to the 
personnel funding shortfall during fiscal year 2009. If confirmed, I am 
committed to reviewing the personnel accounts to ensure that they are 
fully funded consistent with existing fiscal law, regulations and OSD 
directives.
    Question. Does the Navy continue to assume risk in its personnel 
accounts, and if so, where and to what extent?
    Answer. I do not have insight into the risk assumed in the 
personnel accounts. If confirmed, I commit to review the accounts to 
ensure adequate funding for the force structure budgeted.
              laboratory directed research and development
    Question. Section 219 of the NDAA for Fiscal Year 2009 authorized 
the Secretary of Defense, in consultation with the Secretaries of the 
military departments, to `` . . . establish mechanisms under which the 
director of a defense laboratory may use an amount of funds equal to 
not more than 3 percent of all funds available to the defense 
laboratory . . . to fund innovative basic and applied research and 
several other purposes at these laboratories.'' Similar to the model of 
the Department of Energy Laboratory Directed Research and Development 
program, the purpose of section 219 is to provide funding and 
discretion to the Navy's laboratory and technical center directors, to 
support the continued infusion of new ideas that support Navy missions, 
and in particular to authorize the directors to exercise some 
discretion in investing in promising technologies and other laboratory 
activities.
    What should the role and authority of the Navy comptroller's 
organization be in implementing this statute?
    Answer. The role of the Navy Comptroller organization in 
implementing this statute is to develop a budgetary strategy which 
ensures funds are available for the purposes set forth in section 219. 
The Comptroller organization would also be responsible for developing 
the appropriate financial and accounting methods for implementation of 
section 219. If confirmed, I will ensure that the financial strategy 
and financial and accounting methods are in place to support the 
statute.
    Question. How would you intend to enable the laboratory director's 
discretion over such funding to support its effective implementation, 
similar to the Department of Energy model?
    Answer. I understand that efforts are underway to provide the 
necessary guidance for successful implementation of the statute and to 
enable laboratory directors to initiate and oversee their local section 
219 programs. If confirmed, I will work with the Assistant Secretary of 
the Navy (Research, Development and Acquisition) who has programmatic 
oversight of the program, and Office of the Secretary of Defense 
(Comptroller) to ensure successful implementation.
 budgeting to address operational needs and technological opportunities
    Question. The Services are often faced with situations in which an 
urgent operational need or a new technological opportunity arises on a 
timeline that is inconsistent with the relatively slow budgeting and 
programming process.
    How should the Navy change its processes so that its budgeting, 
programming, and planning processes are more adaptable to emerging 
operational needs and technological opportunities?
    Answer. Every effort should be made to include any operational 
needs or technological opportunities within the budget. It is 
impossible, however, to include everything and still meet the deadlines 
imposed for timely submission. To the extent that the needs are known, 
they are included in the budget. If confirmed, I will review the 
processes to see if changes can be made that will be more adaptable to 
emerging operational needs and technological opportunities.
                   congressionally directed spending
    Question. Congress often provides the Navy with additional 
resources for research, procurement, operation and maintenance, and 
other activities above the President's recommended levels.
    If confirmed, how will you work with Congress during the 
authorization and appropriations process to ensure that proposed 
congressional funding items are reviewed for their military value and 
technical merit before their inclusion in legislation?
    Answer. If confirmed, I will maintain an open dialogue with 
Congress to ensure that the needs of the Department as well as the 
administration are conveyed.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy (Financial Management and Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                          priority of funding
    1. Senator Burris. Ms. Commons, what future systems should have 
priority of funding to support warfighters?
    Ms. Commons. Future requirements are currently being reviewed as 
part of the Department of Defense (DOD) Quadrennial Defense Review. The 
results of this review will shape the Department of the Navy's (DON) 
priorities. I view my role as ASN (FM&C) as one of supporting the 
warfighting priorities of the CNO and CMC, under the direction of the 
Secretary of the Navy. I will seek to ensure that our cost estimates, 
budgets, and financial operations inform and optimize the attainment of 
program priorities of the Secretary, CNO, the CMC, the DOD leadership, 
the President, and Congress.

    2. Senator Burris. Ms. Commons, is there a conflict between Marine 
Corps and Navy funding priorities in the out-years of the current 
program objective memoranda (POM)?
    Ms. Commons. I am not aware of a conflict between Marine Corps and 
Navy funding priorities in the out-years of the current POM. Issues 
arising during the POM process are handled in accordance with the 
Secretary of the Navy's guidance. Secretary Mabus has established a 
leadership governance council to be the principal decisionmaking body 
for DON, and the vehicle through which we work the POM approval 
process. The council consists of two bodies, the senior group is made 
up of the Secretary, Under Secretary and two Service chiefs and a 
subordinate group chaired by the Under Secretary includes the Service 
vice chiefs, Assistant Secretaries, General Counsel, two Deputy Under 
Secretaries, and several others. These groups will meet throughout the 
POM process to review options and determine resolution of a wide range 
of DON issues. The final POM product will be a Departmental product 
which reflects the results of these deliberations.

                            joint operations
    3. Senator Burris. Ms. Commons, how do you intend to support the 
current and future joint operations that the unified commanders are 
executing?
    Ms. Commons. The Navy and Marine Corps as DOD Service components 
effectively man, train, and equip forces to provide mission-ready, 
joint-capable forces and enforce the importance of sustained and 
persistent cooperation and collaboration in times of relative peace to 
mitigate situations that could lead to conflict and crisis and support 
all combatant command (COCOM) operations. The Navy supports these 
multiple COCOM requirements as vetted and prioritized through the Joint 
Staff. Additionally, the Navy is the COCOM Support Agent for two 
COCOMS; U.S. Joint Forces Command and U.S. Pacific Command. In this 
role, per DOD Directive 5100.3, Navy provides the administrative and 
logistic support for missions or tasks directly assigned to the 
combatant command headquarters or their joint subordinate commands.

                homeland security and civil authorities
    4. Senator Burris. Ms. Commons, is there a role for you to play in 
homeland security and support to civil authorities?
    Ms. Commons. The Department of Navy (DON) will have a role in 
homeland security and assistance to civil authorities as directed by 
and consistent with Executive Orders and applicable laws and 
directives. The use of DON resources to support these efforts will be 
dependent on legal provisions.

                          financial oversight
    5. Senator Burris. Ms. Commons, do you believe that the current 
financial internal controls are sufficient to perform your ability to 
limit waste, fraud, and abuse?
    Ms. Commons. Yes. The DON has a robust Managers' Internal Control 
Program based on OMB Circular A-123. This program requires: (1) 
establishing controls over operational, business, and financial 
processes; (2) testing them on a regular schedule; and (3) reporting 
the results of the testing. In addition, as part of the Navy's ongoing 
Financial Improvement Program, we are strengthening financial controls 
to support audit readiness. Current controls are adequate to limit 
waste, fraud, and abuse; the future control environment will be 
increasingly effective.

           defense integrated military human resources system
    6. Senator Burris. Ms. Commons, are there any financial impediments 
to implementing the Defense Integrated Military Human Resources System 
(DIMHRS)?
    Ms. Commons. No, there are no financial impediments associated with 
the Navy's use of the DIMHRS Core. The Service has developed a Program 
Office cost estimate and the program is fully funded for execution in 
fiscal year 2010 and fiscal year 2011. As we evaluate the delivered 
core capabilities of DIMHRS, we will be able to fully define our plan 
for the future integrated pay and personnel system, and address total 
resource requirements.

                     auditable financial statements
    7. Senator Burris. Ms. Commons, you acknowledge in your responses 
to the committee's advance policy questions that a top financial 
management goal is ensuring the availability of accurate, reliable, and 
timely financial information and the capability to produce auditable 
financial statements. Based on your experience as a Comptroller, what 
specifically must be done to ensure the goal of auditable financial 
statements is achieved?
    Ms. Commons. The DON will continue to execute its two-prong 
strategy to establish robust controls over business systems and 
processes impacting financial reporting: (1) DON will continue the 
execution of the Financial Improvement Program and; (2) DON will 
continue the progressive implementation of Navy Enterprise Resource 
Planning (ERP) throughout the Department. The Financial Improvement 
Program's primary goal is to establish robust internal controls over 
business processes impacting financial reporting. In tandem, as more 
major commands implement Navy ERP, business and financial controls 
throughout the Navy will be strengthened and standardized. Departmental 
internal controls will be regularly tested and corrective actions will 
be implemented if necessary which will lead to accurate, auditable 
financial reports.
    As a first step toward auditable financial statements in DON, the 
Marine Corps has achieved audit readiness on its Statement of Budgetary 
Resources. An independent private auditor is now examining this 
assertion and will offer an opinion in November 2010. Not only is this 
an important milestone on the path to auditability for DON and DOD, but 
all of the Services will leverage the lessons learned by the Marine 
Corps during the audit. This will result in more effective preparations 
for future audits of financial statements within DOD.

    8. Senator Burris. Ms. Commons, you state in your responses that 
``a substantial amount of work must be done to improve our business 
systems and processes.'' We have been hearing this for a long time in 
Congress. What do you consider to be the most pressing changes that 
must be accomplished to bring about improvement during your tenure if 
confirmed as Assistant Secretary?
    Ms. Commons. We must continue to lead change in the Departmental 
business and financial culture. The changes will be based on 
establishing robust internal controls over business processes and 
systems. As these controls are established, we must also regularly 
monitor their effectiveness through testing, report the results, and 
make adjustments when necessary to ensure the controls are operating as 
intended. The Financial Improvement Program stresses a strengthened 
regime of internal controls over business processes.
    Navy ERP, as it continues to be rolled out, will standardize and 
shore up system and process controls. Navy ERP will also require the 
acquisition, logistics, and financial communities to jointly retool 
their policies and procedures for the efficiency of the entire 
enterprise.
    To augment Navy ERP and the Financial Improvement Program, we must 
continue to field a talented, highly-trained workforce. This investment 
in human capital is necessary and will yield a favorable return.
                                 ______
                                 
    [The nomination reference of Gladys Commons follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 29, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gladys Commons, of Virginia, to be an Assistant Secretary of the 
Navy, vice Douglas A. Brook, resigned.
                                 ______
                                 
    [The biographical sketch of Gladys Common, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Gladys Commons
                               education
    1969 - Fayetteville State University, Bachelor of Science
    1979 - American University, Masters of Public Financial Management
    1987 - Industrial College of the Armed Forces, No degree granted
                           employment record
    2002-2004 - Comptroller of the Military Sealift Command
    Mar.-Oct. 1998 - Acting Assistant Secretary of the Navy for 
Financial Management and Comptroller
    1994-2002 - Principal Deputy Assistant Secretary of the Navy for 
Financial Management and Comptroller
    1987-1994 - Comptroller of the Marine Corps Research, Development, 
and Acquisition Command
    1983-1986 - Budget Officer and Head of the Materiel Program and 
Budget Branch, Materiel Division, Installation and Logistics 
Department, Headquarters Marine Corps.
    1980-1983 - Supervisory Budget Analyst and Branch Head of the 
Budget and Operations Branch, Naval Facilities Engineering Command.
    1977-1980 - Lead Budget Analyst, Operations Program/Budget 
Division, Naval Data Automation Command
    1971-1977 - Budget Analyst, Office of Naval Research
    1969-1971 - Claims Representative, Social Security Administration
                           honors and awards
    The Presidential Rank Award of Meritorious Executive (2000)
    Department of Defense Meritorious Civilian Service Award (2002)
    Department of the Navy Distinguished Civilian Service Award (3) 
(1998, 2001, 2004)
    The American Society of Military Comptrollers President's Award 
(2000)
    Numerous Outstanding and Sustained Superior Performance Awards 
(1974-2004)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gladys Commons 
in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gladys Lee Commons,
    Gladys J. Commons,
    Gladys Lee James (Maiden).

    2. Position to which nominated:
    Assistant Secretary of the Navy (Financial Management and 
Comptroller).

    3. Date of nomination:
    September 29, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 2, 1948; Maple Hill, NC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Willie Commons, Jr.

    7. Names and ages of children:
    Willie Commons III, age 33; James McCarthur Commons, age 28; and 
Krystal Renee Commons, age 22.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    C.F. Pope High School, 1961-1965, High School Diploma, May 1965
    Fayetteville State University, 1965-1967, 1968-1969, Bachelor of 
Science, May 1969
    University of North Carolina at Chapel Hill, 1967-1968, No degree 
granted
    American University, 1977-1979, Masters of Public Financial 
Management, June 1979
    Industrial College of the Armed Forces, 1986-1987, No degree 
granted

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Retired. March 2004-Present
    Election Officer. County of Fairfax, Virginia Korean Baptist 
Church, 7200 Ox Road, Fairfax Station, VA (1 day elections in 2007, 
2008, 2009)
    Comptroller. Military Sealift Command, 914 Charles Morris Court, 
Bldg. 210, Washington Navy Yard, Washington, DC,10/2002-03/2004
    Principal Deputy Assistant Secretary of the Navy (Financial 
Management and Comptroller, 1000 Navy, Room 4E768, Pentagon, 
Washington, DC, 02/1994-10/2002

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    2002-2004 Comptroller of the Military Sealift Command
    Mar.-Oct. 1998 - Acting Assistant Secretary of the Navy for 
Financial Management and Comptroller
    1994-2002 - Principal Deputy Assistant Secretary of the Navy for 
Financial Management and Comptroller
    1987-1994 - Comptroller of the Marine Corps Research, Development 
and Acquisition Command.
    1983-1986 - Budget Officer and Head of the Materiel Program and 
Budget Branch, Materiel Division, Installation and Logistics 
Department, Headquarters Marine Corps.
    1980-1983 - Supervisory Budget Analyst and Branch Head of the 
Budget and Operations Branch, Naval Facilities Engineering Command.
    1977-1980 - Lead Budget Analyst, Operations Program/Budget 
Division, Naval Data Automation Command
    1971-1977 - Budget Analyst, Office of Naval Research
    1969-1971 - Claims Representative, Social Security Administration

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Warner Baptist Church - Beaconess.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    The Presidential Rank Award of Meritorius Executive (2000)
    Department of Defense Meritorius Civilian Service Award (2002)
    Department of the Navy Distinguished Civilian Service Award (1998, 
2001, 2004)
    The American Society of Military Comptrollers President's Award 
(2000)
    Numerous Outstanding and Sustained Superior Performance Awards 
(1974-2004)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Gladys Commons.
    This 14th day of October, 2009.

    [The nomination of Gladys Commons was reported to the 
Senate by Chairman Levin on October 27, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2009.]
                              ----------                              

    [Prepared questions submitted to Terry A. Yonkers by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I have seen the benefits of the Goldwater-Nichols Act in 
terms of jointness, provision of military advice to the President, and 
interagency cooperation. At this time I see no specific changes in the 
act that I would recommend.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I am not aware of any specific proposals being 
considered. If confirmed, I would work with the Secretary of the Air 
Force on any proposed changes that pertain to installations, 
environmental, energy, safety, or logistics concerns.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force for Installations and 
Environment?
    Answer. The Assistant Secretary of the Air Force for Installations, 
Environment and Logistics is responsible for the overall supervision of 
all matters pertaining to Air Force installations, environment and 
logistics. The Assistant Secretary provides guidance, direction, and 
oversight for all matters pertaining to the planning, acquisition, 
sustainment and disposal of Air Force real property and natural 
resources, environmental program compliance, energy management, safety 
and occupational health of its personnel and life cycle integrated 
logistics support.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have nearly 40 years of professional experience as an 
environmental engineer, program manager, and policy director. I served 
22 years of my professional career with the Department of the Air Force 
working environmental, safety, occupational health issues at all 
command levels within the Air Force. I previously served as the acting 
Deputy Assistant Secretary of the Air Force (Environment, Safety, and 
Occupational Health (ESOH)) with worldwide responsibility for the Air 
Force's ESOH programs and policies and an annual ESOH budget in excess 
of $2 billion. I spent 3 years of my Pentagon experience assigned to 
Air Force budget committees with responsibility for making corporate 
level decisions regarding allocation of Air Force fiscal, fixed, and 
personnel assets. I served as the Chief of Environmental Programs for 
the Air Force's Base Realignment and Closure Office and was 
instrumental in standing up the organization, developing the policies 
and procedures for expediting the clean up of contaminated sites and 
returning properties to local communities for productive reuse and 
managing an annual budget of over $400 million. I spent nearly 10 years 
of my Air Force career in the Pentagon and have worked with my 
counterparts in the Office of the Secretary of Defense (OSD) and the 
military Services to develop practical and effective solutions to any 
number of ESOH challenges.
    My 15 years of private sector experience provides different 
perspectives that will provide balance and enhance my ability to deal 
with the challenges of this position. Four of those years included 
working for Southern California Edison Company learning the electrical 
generation and distribution business and the planning and licensing 
procedures to bring nuclear, hydroelectric, solar, wind, and fossil 
fuel facilities on-line. The last 7 years have been spent as a Senior 
Vice President with ARCADIS-US, Inc. as a business development manager 
and strategic advisor to the company's global construction and 
environmental business interests
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force (Installations and Environment)?
    Answer. Yes. I will need to become reacquainted with the issues and 
challenges facing the Air Force in those areas for which I will have 
responsibility. I will need to build a working relationship with the 
Air Force team and my counterparts in OSD and the military Services as 
well as the senior leadership in other Federal agencies and communities 
who will be key to helping accomplish the mission of the Air Force. If 
confirmed, within the first few months I plan to visit a number of air 
bases (Active, Reserve, and Guard) and the Logistics Centers (Hill AFB, 
Tinker AFB, and Robins AFB) to hear first hand from those on the front 
lines what challenges and recommendations they have to improve business 
practices and effectiveness of their jobs. I will meet with the Air 
Force services centers responsible for executing the energy, logistics, 
environmental, family housing and construction projects so critical to 
the Air Force mission and quality of life. If confirmed, I will also 
plan to meet with key members of agencies like the Environmental 
Protection Agency, Department of Energy, Department of Interior, 
General Services Administration, Council on Environmental Quality (and 
others) to outline how we can work together to develop synergies and 
achieve solutions to mutual problems.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. I would expect the Secretary to prescribe the duties and 
functions commensurate with the position and consistent with those 
specified in law.
                             relationships
    Question. If confirmed, what would be your professional 
relationship with:
    Secretary of the Air Force.
    Answer. If confirmed, I will meet and communicate with the 
Secretary of the Air Force on a regular and as required basis. I will 
provide him with my honest assessment and advice and support him in the 
implementation of his decisions and policy.
    Question. Under Secretary of the Air Force.
    Answer. If confirmed, I will work closely with the Under Secretary 
especially on energy issues and initiatives and advise and assist in 
the execution of those Air Force programs for which he/she is 
responsible.
    Question. Air Force Chief of Staff.
    Answer. The Chief of Staff of the Air Force, except as otherwise 
prescribed by law, performs his duties under the authority, direction, 
and control of the Secretary of the Air Force and is directly 
responsible to the Secretary. If confirmed, I would, as the senior 
civilian charged with policy decision for installations and environment 
initiatives, work hand in hand with the Chief of Staff to carry out the 
duties prescribed by the Secretary of the Air Force.
    Question. Air Force Vice Chief of Staff.
    Answer. If confirmed, I will similarly work closely with the Vice 
Chief of Staff of the Air Force on installations, logistics, and 
environment issues.
    Question. Deputy Under Secretary of Defense for Installations and 
Environment.
    Answer. If confirmed, I plan to foster a harmonious working 
relationship with all my civilian contemporaries in OSD. I will 
communicate openly and directly with the Deputy Under Secretary of 
Defense for Installations and Environment in articulating the views of 
the Department of the Air Force.
    Question. Other Assistant Secretaries of the Air Force.
    Answer. If confirmed, I will establish and maintain close and 
professional relationships with each of the Assistant Secretaries and 
seek to foster an environment of cooperative teamwork, working together 
on the day-to-day management and long-range planning needs of the Air 
Force.
    Question. Assistant Secretaries of the Army and Navy for 
Installations and Environment.
    Answer. If confirmed, I will move quickly to establish and maintain 
a close and professional relationship with the Assistant Secretaries of 
the Army and Navy for Installations and Environment. I believe 
coordination with them will be critical in meeting national goals in 
energy and environmental security, installation management, housing and 
utility privatization.
    Question. General Counsel of the Air Force.
    Answer. The Air Force General Counsel has a significant role to 
play in virtually all policy decisions in the Air Force. If confirmed, 
I expect to have a strong relationship with The General Counsel and 
consistently seek his sound legal advice.
    Question. Judge Advocate General of the Air Force.
    Answer. If confirmed, I expect to establish a strong relationship 
with the Judge Advocate General of the Air Force as the Air Force's 
senior military legal counsel and senior leader of the Air Force Judge 
Advocate Corps.
    Question. Deputy Chief of Staff of the Air Force for Installations 
and Logistics.
    Answer. If confirmed, I will move quickly to establish a close and 
active professional relationship with the Deputy Chief of Staff for 
Installations ad Logistics. This relationship will be critical, and if 
confirmed, one of my first tasks will be to meet with him to understand 
his priorities and how we can work together to meet our respective 
responsibilities.
    Question. Civil Engineer of the U.S. Air Force.
    Answer. A close working relationship is equally vital with the 
Civil Engineer of the United Sates Air Force. If confirmed, I will act 
quickly to meet with the Civil Engineer to understand his priorities 
and explore opportunities to work together.
                     major challenges and problems
    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Air Force for Installations and 
Environment?
    Answer. Enhancing our ability to carry out the Air Force mission in 
the most efficient and cost-effective manner will always be a priority 
made even more pronounced with expected budgets. I anticipate 
challenges in finding the right balance between maintaining a high 
status of readiness while optimizing the use of our scarce resources in 
the areas of military construction, infrastructure management, depot 
maintenance and logistics, and environmental compliance. Energy 
security and meeting the goals of the Energy Acts and Executive Orders 
will be a priority that presents challenges with tremendous 
opportunities especially in the areas of renewable energy technologies 
and application. If confirmed, I look forward to meeting the evolving 
challenges presented by global climate change and control of greenhouse 
gases and the implications these may have on national security. Quality 
of life programs implemented through Military Construction, Family 
Housing, and the Air Force's safety and occupational health programs 
will also continue to present budget challenges as the Air Force 
balances resources allocations.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will take the following initial actions: 
(1) articulate a clear vision, expectations, and priorities in those 
areas for which I will be responsible consistent with national 
priorities and the Air Force mission; (2) evaluate existing policies 
and procedures within the department to make sure they are aligned with 
the vision and path forward; (3) evaluate whether the organizational 
structure is optimal to meet the vision and requirements of the Air 
Force; (4) continue to recruit the best and the brightest and give the 
leadership team the support and flexibility they need to do their jobs; 
(5) look outside the department and harness the best ideas, processes 
and technologies being successfully used in the private sector as well 
as other government agencies; and (6) establish reasonable metrics to 
judge performance and establish feedback loops to ensure these metrics 
and policies are being implemented effectively and efficiently.
    Question. What do you consider to be the most significant problems 
in the performance of the functions of the Assistant Secretary of the 
Air Force for Installations and Environment?
    Answer. I am not in a position at this time to know what the most 
serious problems are with respect to the responsibilities of the 
Assistant Secretary of the Air Force (Installations, Environment, and 
Logistics). However, I know from experience that national priorities 
will change and we must be open minded and flexible in the way we 
approach problems and issues. We must continue to adjust to meet these 
emerging priorities and challenges staying focused on meeting the 
missions of the Air Force in the most responsible, efficient and cost-
effective manner possible. If confirmed, one of my first tasks will be 
to understand the short- and longer-term issues facing the Air Force in 
Installations, Environment, and Logistics and consider how these 
challenges affect other Air Force programs. Once this evaluation is 
completed, I should have a good idea of which problems are most 
pressing and which present the highest risk and also understand the 
unintended consequences of taking one option as opposed to another.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. I would initiate the review of Air Force programs 
immediately, evaluate the risks and prioritize the most pressing 
problems that will require focused attention. I will collaborate with 
my counterparts in DOD, the military services and within the Air Force 
where those issues overlay or may impact the responsibilities of others 
and develop a plan to address these issues.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Air Force for Installations and Environment?
    Answer. If confirmed, I will establish priorities consistent with 
those of the President of the United States, the Secretary of Defense, 
and the Secretary of the Air Force.
    Question. Do you have any specific plans to help improve the 
quality of life for Air Force families who are under considerable 
strain as a result of repeated deployments?
    Answer. I am not in a position at present to develop specific plans 
with respect to improving the quality of life of our airmen and their 
families. However, I clearly recognize the pressures repeated 
deployments have placed on our Air Force families. If confirmed, I will 
work in concert with the Secretary of the Air Force and the other 
Services to institute positive change in those areas that can be 
influenced by the installations and environment portfolio. The 
Assistant Secretary of the Air Force for Installations and Environment 
has responsibility for, among other things, two largely distinct 
programs--the military construction program and the environmental 
program.
    Question. In the competition for resources inherent in the DOD 
budget process, which of these two major programs do you believe should 
have priority in terms of funding? Why?
    Answer. I am not in a position at present to comment on the 
relative funding priorities of construction and environmental programs. 
However, I can say with confidence, we have outstanding professionals 
on the SAF/IE team who have dedicated their lives to working these 
programs. If confirmed, I will work with these experts and ensure the 
final decisions that are made are in the best interest of the Air 
Force, the Department of Defense (DOD), and most importantly, our 
Nation.
                         military construction
    Question. Over the last several years, the Air Force has had the 
smallest share of DOD's overall military construction program. 
Additionally, the military construction programs of the Air National 
Guard and the Air Force Reserve have been substantially underfunded.
    What would be your highest priorities for allocating military 
construction funding for the Air Force over the next several years?
    Answer. The military construction program priorities should fall in 
line with overall Air Force priorities. Today, those priorities are 
reinvigorating the nuclear enterprise, partnering with the joint and 
coalition team to win today's fight, developing and caring for airmen 
and their families, modernizing air and space inventories, and 
regaining acquisition excellence. If confirmed, I will work to ensure 
that those top priorities receive appropriate military construction 
funding.
    Question. If confirmed, what would be your intention with regard to 
the funding levels for military construction for the Guard and Reserve 
in future budget requests?
    Answer. If confirmed, I will ensure that the Air Reserve components 
are treated equitably within the corporate process and receive their 
fair share of Air Force resources.
                    family housing and privatization
    Question. In recent years, DOD and Congress have taken significant 
steps to improve family housing. The housing privatization program was 
created as an alternative approach to speed the improvement of military 
family housing and relieve base commanders of the burden of managing 
family housing. If confirmed for the position of Assistant Secretary of 
the Air Force for Installations and Environment you will have a key 
role in decisions regarding military family housing.
    What are your impressions of the overall quality and sufficiency of 
Air Force family housing both in the United States and abroad?
    Answer. I'm not in a position to judge the quality and sufficiency 
of the Air Force's family housing at this time. However, one of my 
first tasks, if confirmed, will be to make an evaluation of how the Air 
Force is doing with regard to family housing and meeting the goals of 
the department as well as the expectations of our service men and 
women.
    Question. What are your views regarding the privatization of family 
housing?
    Answer. Quality family housing communities are critical to the men 
and women of the Air Force and their families. If confirmed, I will 
ensure our military members and their families are provided access to 
safe, quality and affordable housing so that they may better carry out 
the Air Force mission. From my limited understanding, I believe the 
family housing privatization program has made significant progress in 
improving the housing and quality of life for airmen and their 
families.
    Question. What is your view of the structure and general goals of 
the Air Force's current housing privatization program?
    Answer. I understand that the Air Force goal is to privatize 100 
percent of its housing in the United States and overseas by 2010. I 
understand the Air Force is on a path to meet this goal and I will do 
everything within my power to ensure the Air Force achieves its goal.
    Question. Do you believe the housing program should be modified in 
any way? If so, how?
    Answer. I do not have any specific changes I can recommend today. 
However, if confirmed, I plan on exploring all avenues to partner with 
industry in the most effective and mutually beneficial way. If I 
uncover any areas where legislative help is needed, I will request 
congressional assistance.
    Question. In light of the bankruptcy of American Eagle, does the 
Air Force intend to change the nature of its individual agreements with 
privatization contractors to the same sort of LLC arrangement as the 
other Services maintain?
    Answer. I am not currently in a position to comment on the details 
of the American Eagle initiative. However, if confirmed I will review 
the Air Force Housing Privatization program to better understand the 
best practices within DOD and the Air Force and implement any necessary 
modifications.
    Question. The Air Force has stated as its goal to privatize 100 
percent of military family housing in the continental United States 
(CONUS), Hawaii, Alaska, and Guam by the end of fiscal year 2010.
    What is your understanding regarding the status of this 
privatization goal and when do you expect the Air Force will finish its 
housing privatization efforts?
    Answer. The Air Force continues to remain committed to providing 
high quality housing to airmen and their families. The Air Force 
continues to work towards the goal of privatization of 100 percent of 
CONUS bases by the end of fiscal year 2010.
                     base closure and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process is currently underway. What do you see as the roles and 
responsibilities of the Department of the Air Force in implementing 
BRAC decisions?
    Answer. I believe the Air Force's roles and responsibilities are to 
implement the final decisions of the 2005 BRAC expeditiously and 
efficiently in the best interest of the local community, the Federal 
Government, the Air Force, and the American taxpayer.
    Question. What would your role be, if confirmed, in carrying out 
these responsibilities?
    Answer. If confirmed, I will ensure the Air Force has the proper 
resources and policies in place to properly implement the BRAC 2005 
decisions, fulfill its statutory obligations and meet the mission needs 
of the Air Force, other Services, and defense agencies. I will also 
seek to cooperate with State and local governments, environmental 
regulators, and redevelopment authorities and the private sector to 
implement the decisions with consideration for the interests of all 
stakeholders.
    Question. If confirmed, what priorities would you set for the 
process of disposal of any property at Air Force bases affected by BRAC 
decisions?
    Answer. I understand the Air Force has implemented a BRAC Master 
Plan that considers a number of criteria to facilitate disposal of 
property. I will take a close look at this master plan and evaluate if 
it meets the goals and expectations for property disposal commensurate 
with the local community's redevelopment plans and objectives. 
Historically, environmental cleanup issues have impeded the disposal 
and unrestricted use of BRAC properties. I also want to determine if 
environmental cleanup of BRAC properties can be improved both in terms 
of schedule and unrestricted use and adjust the BRAC program 
accordingly.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active and 
decisive role in the reuse of property.
    In your view, what are the roles and responsibilities of the 
Department of the Air Force within the 2005 BRAC property disposal 
process with respect to working with local communities?
    Answer. Collaboration and communication are critical to success. If 
confirmed, I would work closely with the communities and State and 
local agencies affected by the BRAC 05 closures, ensure environmental 
cleanup is performed, and utilize all available assets to place the 
property into the hands of the local communities in a timely manner. 
This approach can ensure that the community will quickly recover from 
the impacts of base closure and realignments.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. If confirmed, I want to understand the communities' 
redevelopment plans and schedules. The Air Force needs to work closely 
with the Office of Economic Adjustment (OEA) to ensure that affected 
communities have all the resources necessary to accomplish their 
comprehensive planning for the reuse of base property. I will evaluate 
the Air Force's BRAC Master Plan and environmental cleanup program to 
ensure these are in line with community development planning.
    Question. Is the Air Force moving aggressively to implement the 
joint basing agreements that were mandated by BRAC 2005?
    Answer. I understand the Air Force is working with OSD and the 
other military Services to implement the joint basing decisions 
mandated by BRAC 2005. Meeting the joint basing goals will be one of my 
priorities if confirmed, and I am fully committed to this challenge.
    Question. What do you see as the main concerns related to the 
implementation of BRAC-directed joint basing agreements?
    Answer. I am not familiar with specific concerns with BRAC-directed 
joint basing agreements at this time. However, if confirmed, I will 
focus my initial efforts to ensure the Air Force has moved smartly and 
quickly to put the right foundational elements in place to support a 
seamless transition to a joint base with minimal impact to the mission 
and the base population.
    Question. Will the Air Force have any trouble finishing the BRAC 
2005 round on time?
    Answer. The Air Force reports its BRAC 2005 program is on track and 
will be complete with implementing its recommendations within the 
statutory time limit.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in the past have 
testified that the military Services underinvest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of underinvestment in 
our installations has led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity. If confirmed, what recommendations 
would you have for restoring and preserving the quality of our 
infrastructure?
    Answer. If confirmed, I will review the current and future 
requirements for our infrastructure, to ensure that the Air Force can 
support its missions and the Secretary of the Air Force's priorities.
                          enhanced use leases
    Question. Congress has provided the authority for each of the 
Service Secretaries to lease underutilized non-excess property and to 
use revenues generated by those leases to enhance infrastructure and 
operating costs on those installations. This so-called ``enhanced use 
lease'' (EUL) authority is being used in different ways and for 
different purposes by each of the military departments. The Air Force, 
after some hesitation, seems to be embracing EUL opportunities 
including the recent implementation of a creative agreement at Hill Air 
Force Base in Utah.
    What is your understanding of the EUL authority?
    Answer. I understand that Congress provided EUL authority to the 
military Services and that it applies to underutilized property that 
has not been declared excess. I understand the Service Secretaries can 
enter into lease arrangements with private sector providers in exchange 
for infrastructure and operating cost considerations. I understand that 
the EUL must be shown to promote the national interest or be in the 
public interest.
    Question. What do you see as the future of the Air Force's EUL 
program?
    Answer. If confirmed, I will build upon the successes of the Air 
Force's EUL program. I view the EUL program as a significant asset 
management tool for the Air Force. Accordingly, it will help reduce the 
amount of underutilized assets, and create resources that can 
supplement Air Force goals and mission requirements.
    Question. What EUL projects do you see as most viable in the near 
term?
    Answer. If confirmed, I will continue the efforts underway and will 
focus on opportunities to support the Air Force's ongoing renewable 
energy and infrastructure initiatives. Further, I will continue 
traditional real estate transactions as the real estate market 
continues to rebound.
    Question. If confirmed, what will be the main concentration of the 
EUL program?
    Answer. I believe the EUL program will provide Air Force the 
ability to leverage assets and establish long-term relationships with 
private and government partners. These efforts will cultivate 
meaningful support and improvement for Air Force installations and 
surrounding communities by enhancing future economic growth. Further, I 
believe the program can help substantially in achieving the Air Force's 
and DOD's energy and water efficiency goals.
    Question. Will you consider the authority to provide support to 
energy initiatives?
    Answer. Yes. If confirmed, I will ensure the Air Force considers 
and continues seeking out energy opportunities looking at all renewable 
energy options as well as how we can support Smart Grid technologies 
and applications.
    Question. Will you continue to focus on the construction of 
facilities and in-kind reimbursement to base operating costs?
    Answer. Yes. I believe it is essential for the AF to leverage its 
non-excess real estate assets to obtain private sector capital to 
offset operating costs and for facility construction. These are ``win/
win'' projects that will help installation commanders sustain base 
operations and meet their most urgent needs.
    Question. The Congressional Budget Office has expressed concern 
that EUL authority could be used to acquire expensive facilities 
through long-term leases that commit DOD to make payments (rather than 
receiving payments) over an extended period of time. Do you believe 
that it would be appropriate to use EUL authority to commit future 
years DOD funds for long-term projects to acquire facilities that have 
not received approval through the normal budgeting process?
    Answer. No. My understanding of the EUL authority is that acquiring 
facilities through long-term leasing committing future years funding is 
not allowed.
    Question. If confirmed, how would you address proposals to use EUL 
authority in this manner?
    Answer. Based upon my current understanding of EUL authority, I 
would not support any such proposals.
                         base operating support
    Question. In your view, is the Air Force receiving adequate funding 
for base operating support?
    Answer. If confirmed, I will review the current and future 
requirements for base operating support funding to ensure that the AF 
can support its missions.
    Question. Based on your experience, how might the Department of the 
Air Force distribute base operating funds to best ensure sound 
investment of constrained resources?
    Answer. I believe our commanders are in the best position to 
determine how best to allocate limited base operating support dollars. 
I am committed to ensuring our Wing commanders have the resources to 
execute their missions at the tactical level.
         air force laboratory and test center recapitalization
    Question. There has been concern over the adequacy of 
recapitalization rates of the Department's laboratory facilities and 
test centers. Historically, Air Force laboratories and test centers do 
not appear to have fared well in the internal Air Force competition for 
limited military construction and facility sustainment funds.
    What metrics would you use to assess the amount of investment in 
the recapitalization of Air Force laboratories and test centers to 
determine its adequacy?
    Answer. I am not currently in a position to comment on Air Force 
laboratory and test center recapitalization but if confirmed, I will 
actively work to establish the right metrics to assess their 
recapitalization rates.
    Question. How would you propose to address this recapitalization 
issue for the Air Force laboratories and test centers?
    Answer. I am not currently in a position to comment on Air Force 
laboratory and test center recapitalization. However, if confirmed, I 
will work with the appropriate OSD and Air Force leadership to address 
the recapitalization of Air Force laboratories and test centers.
                 joint strike fighter basing decisions
    Question. The Air Force intends to announce soon a down select of 
bases for the future bed down of the F-35 Lighting.
    What is your understanding of the Air Force's process for making 
basing decisions for the Joint Strike Fighter?
    Answer. It is my understanding that the Air Force has a 
comprehensive process which evaluates every basing decision including 
the beddown of major weapon systems. The process is initiated by the 
Air Force Major Commands taking into account a number of criteria such 
as facility and infrastructure requirements, airspace, environmental 
and energy demand/impacts, logistic support requirements and quality of 
life support facility requirements. These requirements are arrayed 
against possible beddown locations and reviewed by an Executive 
Steering Group and finally by the Secretary and the Chief. The results 
of this initial analysis is the release of a candidate basing list.
    Once the possible basing alternatives have been identified, the Air 
Force begins the National Environmental Policy Act (NEPA) process 
including coordination with the public and local communities. The NEPA 
analysis culminates in a record of decision followed by an announcement 
of the preferred beddown.
    Question. Based on your understanding of the basing decision 
process, including the implications of the NEPA, what is your view on 
how the decision process can best suit the needs of the Department 
while also complying with the legal and regulatory requirements 
associated with such decisions?
    Answer. I see NEPA as an excellent tool and well suited to assist 
the Air Force in making better, more informed, basing decisions when 
looking at a set of reasonable alternatives. This informed 
decisionmaking further assists the Air Force in mitigating potential 
impacts to a broad spectrum of environmental issues including air and 
water quality; noise and encroachment; and endangered species and 
historic preservation--all of which have a basis in regulatory 
guidance.
    Question. What factors contribute to the possibility of litigation 
filed in response to basing decisions like the one underway within the 
Department of the Air Force with respect to the Joint Strike Fighter?
    Answer. Factors that can contribute to the possibility of 
litigation include--but are not limited to--issues associated with the 
Clean Air Act, Endangered Species Act, aircraft noise, and historic 
preservation or simply not appropriately complying with the NEPA 
process.
                       environmental restoration
    Question. Over the past several years, the Air Force has maintained 
level funding in its installation restoration accounts, but more still 
needs to be done to remediate the long legacy of environmental 
contamination.
    What do you see as the main priorities for clean-up within the Air 
Force program?
    Answer. The prevention of exposure hazards and the remediation of 
contaminated land are the main priorities of the Air Force 
environmental restoration program. The Air Force has set a goal of 
having Remedies-in-Place or Responses Complete (RIP/RC), whichever 
comes first, by fiscal year 2012 (2 years ahead of the DOD goal of 
2014) and the completion of Site Inspections of currently identified 
Military Munitions Response Program (MMRP) sites by fiscal year 2010.
    Question. What will you do to ensure that adequate funding is 
requested and received to ensure that clean-ups under the Installation 
Restoration Program and under the Military Munitions Remediation 
Program continue apace?
    Answer. If confirmed, I will work with Air Force leadership and the 
corporate structure programming and budgeting process to ensure 
adequate funds are available to meet aggressive restoration goals.
    Question. Based on your experiences in both the government and 
private sectors, what changes, if any, in the DOD restoration program 
do you think could help expedite clean-up efforts at active and former 
defense sites?
    Answer. DOD is doing a good job cleaning up its contaminated sites 
and, if confirmed, I will work with the Deputy Under Secretary for 
Installations & Environment to review the department's cleanup program 
and metrics.
    Question. At the beginning of 2009, there were 11 sites within DOD 
that were listed on the National Priority List (NPL) but were not yet 
covered by signed interagency Federal Facility Agreements (FFA). Seven 
of the 11 were Air Force sites.
    What is your understanding of the status of these agreements and do 
you believe it is important to have signed FFA for NPL sites?
    Answer. I fully support working as partners with the Environmental 
Protection Agency and State regulators in NPL cleanup agreements. To 
that end, it is important to have signed FFA in place.
                          pollution prevention
    Question. In each annual budget request since at least fiscal year 
2006, the Air Force has requested over $80 million for pollution 
prevention programs. However, for fiscal year 2010, the Air Force 
requested less than $45 million.
    What is your understanding of the reasons for this significant 
reduction in pollution prevention funding?
    Answer. If confirmed, I will review the budget request for 
pollution prevention programs to ensure that they are adequate to meet 
the challenges the Air Force faces.
    Question. If confirmed, what would be your intentions with regard 
to future funding for pollution prevention programs?
    Answer. I believe funding for pollution prevention is an investment 
in the future that will reduce maintenance costs, create a healthier 
and safer work place for military and civilian workers, and meet the 
goals and expectations of the Department. If confirmed, I will review 
requirements for Air Force pollution prevention programs to ensure that 
they are adequate to meet the challenges the Air Force faces and comply 
with the new executive order.
                             energy policy
    Question. The Secretary of the Air Force, in a June 16, 2009, 
memorandum, established the Assistant Secretary of the Air Force for 
Installations and Environment as the Office of Primary Responsibility 
supporting the Under Secretary of the Air Force in his capacity as the 
Department's Senior Energy Official.
    If confirmed, what would your responsibilities be for setting and 
implementing energy policy within the Department?
    Answer. If confirmed, I will support the Under Secretary of the Air 
Force, in his or her role as the Air Force's Senior Energy Official, 
and will oversee implementation of the energy program throughout the 
Air Force. My responsibilities would include working with the Secretary 
and the Under Secretary of the Air Force, the other Assistant 
Secretaries, and the Air Force Chief of Staff and Vice Chief of Staff 
to develop overarching energy policy within the U.S. Air Force.
    Question. What do you see as the key elements of the Air Force's 
energy strategy?
    Answer. I understand the Air Force's stated goals are to reduce 
energy demand, increase the availability and types of energy supplies, 
and change the Air Force's culture to make energy a consideration in 
all we do. If confirmed, I will continue to support these goals.
    Question. What is your understanding of the energy conservation 
goals within the Air Force and DOD?
    Answer. Congress and the President have established various energy 
conservation goals that will reduce dependence on foreign sources of 
energy and help sustain the Air Force's mission readiness and 
responsiveness on a global scale. These goals include reducing the Air 
Force's facility and ground vehicle energy consumption each year, while 
increasing the amount of renewable energy and alternative fuels we use.
    Question. If confirmed, what steps would you take to promote energy 
conservation within the Department of the Air Force?
    Answer. I strongly support energy conservation, and I will 
encourage energy conservation using both traditional and innovative 
strategies to ensure that the Air Force meets or surpasses all energy 
standards and goals. If confirmed, I will continue to endorse the Air 
Force's energy vision to make energy a consideration in every activity. 
I will also continually encourage the sharing of best practices with 
sister Services, Federal agencies, and other stakeholders outside of 
the Air Force to identify those ideas and initiatives that can lead to 
greater energy security.
    Question. With respect to renewable energy, which strategies do you 
believe provide the best prospects for meeting the energy needs at Air 
Force installations and in the ground fleet?
    Answer. If confirmed, I will promote the development and use of 
renewable and alternative energy at facilities and in ground vehicles 
and equipment. I will work with the other Assistant Secretaries and the 
Commanders at the Major Commands and installations to identify 
potential opportunities to expand the availability and use of renewable 
and alternative energies. Likewise, I will work with OSD (Deputy Under 
Secretary, Installations and Environment) to identify research and 
development opportunities and investments that will support meeting the 
department's energy goals.
    Question. What renewable technologies and fuel types have the most 
potential for certification and use by aircraft?
    Answer. If confirmed, I will perform a comprehensive review of Air 
Force efforts regarding the specific technologies and fuel types and 
recommend to the Secretary of the Air Force and Chief of Staff of the 
Air Force those alternative fuel sources that I believe would be 
worthwhile to pursue further.
    Question. With respect to aviation fuel requirements, what 
examples, if any, can you provide of policies or initiatives currently 
in practice that both conserve fuel use and cost while balancing 
appropriate readiness levels and pilot training requirements?
    Answer. While I have not had the opportunity to examine all of the 
Air Force's initiatives in this area, I am aware that the Air Force's 
published policy calls for operational aviation effectiveness through 
validating mission and training requirements, moving flight training to 
simulators when practical, and developing a fuel conservation culture 
within the aviation operations community. I know the Air Force has 
taken proactive steps in these areas. If confirmed, I will encourage 
continued efforts to conserve fuel use and cost while optimizing 
readiness and training.
                 encroachment on military installations
    Question. The encroachment of commercial development near military 
installations has negatively impacted Air Force operations at military 
airfields and ranges.
    What do you see as the main constraints on the Air Force's ability 
to use its facilities, including training ranges?
    Answer. Operations at facilities and ranges are affected by a 
variety of constraints including development in the clear zones, height 
of buildings and structures, and commercial facilities that affect the 
electronics on aircraft particularly radar. Training may be moved or 
delayed because of seasonal or time of day restrictions. In other 
instances operations can be affected by competition for airspace or 
incompatible development adjacent to our test and training ranges, or 
under our Military Training Routes, and Special Use Airspace.
    Question. If confirmed, what policies or steps would you take to 
curtail the negative impacts on operations and training resulting from 
encroachment?
    Answer. I believe that we need to work closely with local 
communities as they develop their land use plans. If confirmed, I will 
ensure encroachment issues are treated comprehensively and that the 
appropriate programs or initiatives are implemented to address 
potential readiness problems. We need to understand the community needs 
and they need to know how land use planning can affect our ability to 
meet military training and readiness needs. If confirmed, I will ensure 
the Air Force has a comprehensive encroachment policy and management 
program that supports proactive engagement on encroachment challenges 
with a broad range of tools and strategies.
    Question. How can the Air Force address the issues of encroachment 
around its bases in the United States, particularly with respect to 
encroachment caused by residential development?
    Answer. The best way to address the issues of incompatible 
development is to actively establish long-term working relationships 
with our local communities and participate in the local land use 
planning processes.
                          occupational safety
    Question. In 2006, the Secretary of the Air Force implemented 
within the Air Force the Occupational Safety and Health 
Administration's (OSHA) Voluntary Protection Program (VPP).
    What is your understanding of the Air Force's VPP?
    Answer. I understand VPP is a voluntary program where the Air Force 
takes proactive steps and conducts self-assessments to meet the health 
and safety standards set by OSHA. I know that similar voluntary 
programs have been successfully adopted in the private sector. I see 
the VPP program as a tool to stay focused on the Air Force's health and 
safety programs and to constantly improve the Air Force's already good 
health and safety record.
    Question. If confirmed, what would be your responsibilities under 
the VPP?
    Answer. I believe my primary responsibility lies in overseeing VPP 
implementation and providing policy guidance for the Air Force Safety 
Center, major commands and installations.
    Question. If confirmed, how will you ensure that safety programs 
under your cognizance are effective and successful?
    Answer. If confirmed, I will work closely with the Air Force Vice 
Chief of Staff as co-chair of the Air Force Environment, Safety and 
Occupational Health Council to monitor performance and provide guidance 
as needed. I will partner with the Air Force Chief of Safety to ensure 
policy implementation fosters improved workforce safety and mission 
execution.
                               logistics
    Question. Within the Department of the Air Force, the Assistant 
Secretary of the Air Force for Installations and Environment also has 
responsibility for logistics.
    What is your understanding of these responsibilities?
    Answer. I understand SAF/IE has overall responsibility for 
installations, energy, environment, safety and occupational health, and 
weapon systems logistical support for the Department of the Air Force. 
Specific to logistics the Assistant Secretary (I&E) provides guidance, 
direction, and oversight for all matters pertaining to the formulation, 
review, and execution of plans, policies, programs, and budgets for 
logistics.
    Question. If confirmed, what would be your priorities with respect 
to materiel support, supply chain management, and sustainment?
    Answer. If confirmed, my priorities will be to advocate for and 
support the resources within the corporate structure to meet the 
logistic functions of the Air Force. I will continue to seek process 
improvements to reduce the cost, energy, and environmental footprint of 
the Air Force's logistics centers while improving the Air Force's 
ability to meet the warfighting mission. I will continue to support 
research and development into new materials and technologies that will 
improve the performance, cost, and sustainability of Air Force weapon 
systems. Maintaining the robust technology sustainment capabilities 
organic to the three Logistics Centers, in my view, is critical to 
meeting the sustainment challenges of the Air Force and will be a 
priority for me, if confirmed.
    Question. What initiatives are you aware of within the Department 
of the Air Force that are designed to account for the full life cycle 
costs of munitions, particularly as those costs relate to disposal, 
unexploded ordnance and munitions-constituent contamination?
    Answer. I am not aware of any specific initiatives, however, I 
fully understand our responsibilities to be good stewards of the 
environment and if confirmed I will ensure we comply with the 
environmental laws as established by Congress.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Installations and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                     aging air force infrastructure
    1. Senator Bill Nelson. Mr. Yonkers, if confirmed, you would be 
responsible for the Air Force's aging range infrastructure at Eglin Air 
Force Base (AFB), Cape Canaveral, and Tyndall AFB. For example, Cape 
Canaveral's critical communications hub, the ``X/Y building,'' needs to 
be replaced at a cost of $21 million. Additionally, the Air Force has 
identified over $55 million in required electrical and water upgrades 
for the Eastern Range. These are critical systems for access to space. 
Moreover, critical research, development, test, and evaluation 
infrastructure at Eglin AFB and Tyndall AFB is crumbling. Your advance 
policy questions note that the Air Force is behind military 
construction (MILCON) funding for base infrastructure. Please provide 
your views on the historical underfunding of MILCON for launch, 
research, test, and evaluation infrastructure.
    Mr. Yonkers. I believe that maintaining and enhancing installation 
infrastructure to carry out the Air Force mission in the most efficient 
and cost-effective manner should always be a priority. I would 
anticipate the Air Force to continue to work through challenges in 
finding the right balance between maintaining a high status of 
readiness while optimizing the use of their scarce resources in the 
areas of military construction and infrastructure management. If 
confirmed, I look forward to helping the Air Force in this endeavor.

    2. Senator Bill Nelson. Mr. Yonkers, how will you work with the 
Secretary of the Air Force to rebalance funding priorities for 
infrastructure improvements throughout the Air Force, specifically 
launch, research, test, and evaluation infrastructure?
    Mr. Yonkers. If confirmed, I look forward to participating in 
corporate level decisions regarding allocation of Air Force fiscal 
resources to ensure infrastructure improvements, specifically launch, 
research, test and evaluation infrastructure, are properly considered 
in enterprise-wide resource balancing.

    3. Senator Bill Nelson. Mr. Yonkers, how might divestment or 
enhanced use lease arrangements help with addressing this need?
    Mr. Yonkers. In my view, divestment and enhanced use lease 
arrangements are two of the tools available to the Air Force in the 
management and modernization of its infrastructure. I believe 
divestment and enhanced use lease arrangements are opportunities for 
the Air Force to leverage the expertise and capital of the private 
sector to assist the Air Force in improving its infrastructure and 
facilities.

                    air force housing privatization
    4. Senator Bill Nelson. Mr. Yonkers, will you review the existing 
agreements between the Air Force and housing privatization developers?
    Mr. Yonkers. If confirmed, I intend to conduct a review of the Air 
Force's existing agreements with the housing privatization developers.

    5. Senator Bill Nelson. Mr. Yonkers, will you review the Army's and 
the Navy's housing privatization procedures and identify those 
practices that are disparate? Once you have completed your review, 
would you seek to implement those ``best practices'' that yield the 
best housing for the servicemember, security for the Government, and 
value for the taxpayer? Please provide your findings and conclusions.
    Mr. Yonkers. If confirmed, I intend to undertake a review of the 
Army and Navy housing privatization procedures and take full advantage 
of best practices that may be applied to the Air Force housing 
privatization program in order to provide quality housing that the Air 
Force members and their families expect and deserve.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                      base realignment and closure
    6. Senator Begich. Mr. Yonkers, the 2005 Base Realignment and 
Closure (BRAC) process is currently underway. As a result of BRAC, 
Elmendorf AFB and Fort Richardson will become a joint base. What 
concerns or challenges relating to the implementation of joint basing 
agreements do you foresee?
    Mr. Yonkers. I am not familiar with specific concerns with BRAC-
directed joint basing agreements at this time. However, if confirmed, I 
will focus my initial efforts to try to ensure the Air Force moves 
smartly and quickly to put the right foundational elements in place to 
support a seamless transition to a joint base with minimal impact to 
the mission and the base population.

    7. Senator Begich. Mr. Yonkers, how will you ensure that joint 
basing agreements are executed in a manner least disruptive to the base 
population and missions?
    Mr. Yonkers. If confirmed, I will work with my counterparts in the 
Army and Navy to ensure the military departments and bases involved in 
each joint base take great care to pre-plan their joint base transition 
function-by-function to minimize disruptions to base personnel, 
missions, and surrounding communities.

    8. Senator Begich. Mr. Yonkers, in your answers to the advance 
policy questions you list factors that will contribute to the 
possibility of litigation in response to Joint Strike Fighter (JSF) 
basing populations that include aircraft noise, historic preservation, 
the Clean Air Act, and the Endangered Species Act. How does the current 
bed-down strategy attempt to mitigate some of the issues you identified 
that may lead to litigation?
    Mr. Yonkers. As a Government agency, I would expect the Air Force 
to comply with all laws and regulations governing clean air, historic 
preservation, noise, endangered species, and the National Environmental 
Policy Act (NEPA). I understand part of the beddown strategy is for the 
Air Force to conduct an Enterprise-Wide look which includes 
environmental factors as well as operational criteria to identify 
candidate bases having the greatest potential to accommodate the F-35 
training and operational mission. I also understand that the Air Force 
will conduct a NEPA analysis as required by law based on this candidate 
list.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                            joint operations
    9. Senator Burris. Mr. Yonkers, how do you intend to support the 
current and future joint operations that the unified commanders are 
executing?
    Mr. Yonkers. If confirmed, providing support to the joint 
warfighter would be a priority for me. I have not yet had the 
opportunity to be read-in on current and future joint operations. If 
confirmed, I would work quickly to become knowledgeable on joint 
operational matters and the underlying support provided by the Air 
Force installations, environment, and logistics portfolio of 
capabilities.

                homeland security and civil authorities
    10. Senator Burris. Mr. Yonkers, is there a role for you to play in 
homeland security and support to civil authorities?
    Mr. Yonkers. If confirmed, I would work quickly to understand the 
extent of my responsibilities and the assets available in the Air Force 
installations, environment, and logistics portfolio to fully support 
homeland security and civil authorities to meet our national 
objectives.

                              encroachment
    11. Senator Burris. Mr. Yonkers, what actions in terms of 
encroachment on all Air Force bases do you need to take to perform your 
duties?
    Mr. Yonkers. I believe the most effective encroachment prevention 
and mitigation is accomplished at the installation level. If confirmed, 
one of my primary responsibilities will be to ensure the commanders at 
the bases have the policy, guidance, and resources needed to address 
encroachment challenges. I understand the Air Force currently has 
encroachment management initiatives to look at a number of these 
issues.
    At the corporate Air Force level, if I am confirmed, I expect my 
responsibilities will include ensuring that the Air Force has clear and 
well articulated policies regarding encroachment, and engaging with 
other Federal agencies having jurisdictions over federal lands or 
programs that could impact the Air Force's ability to carry out its 
flying and other operational missions and find ways to resolve 
encroachment problems.

                              conservation
    12. Senator Burris. Mr. Yonkers, how important is green technology 
in implementing the energy policy in the Air Force?
    Mr. Yonkers. I am well aware of the important role that green 
technologies play in meeting energy security, efficiency, and 
conservation goals. While I am not familiar with everything the Air 
Force is doing using green technologies, if confirmed, I will perform a 
comprehensive review of efforts in this area to ensure that the Air 
Force meets or surpasses all energy standards and goals.
    13. Senator Burris. Mr. Yonkers, do you see future opportunities 
for the Air Force to partner with civilian agencies with its 
conservation initiatives?
    Mr. Yonkers. Yes. It is my view that partnering is crucial to 
leveraging research and development technology efforts and best 
business practices across the federal government, as well as technology 
and specialized skills found in the civilian agencies. If confirmed, I 
would look forward to working with other federal agencies to ensure the 
Air Force uses all the tools available to achieve energy conservation 
goals.
                                 ______
                                 
               Questions Submitted by Senator John McCain
               f-35 joint strike fighter basing decisions
    14. Senator McCain. Mr. Yonkers, the Air Force intends to select 
bases for the future stationing of the F-35 JSF for training and 
operations at both Active and Air Guard installations, a matter of 
critical concern to local communities. Implementation of this selection 
process will undoubtedly take up a majority of your time if confirmed 
as Assistant Secretary. In your opinion, should the internal Air Force 
assessments of installations and ranges used to select bases for the F-
35 be open and transparent to allow review by local communities 
affected by the basing decisions?
    Mr. Yonkers. I understand that the Air Force is reviewing basing 
options for the F-35. Consistent with my previous Air Force experience, 
I would expect them to follow an open and transparent process by 
engaging interested Congressional Members and explaining the rationale 
for their strategic basing decisions. Additionally, the Environmental 
Impact Analysis Process that the Air Force would conduct in compliance 
with the NEPA, is very transparent and open to public comment and 
participation. All inputs received as a result of this ``open public 
process'' would be evaluated in decision making before the final Record 
of Decision is signed identifying the final basing locations.

    15. Senator McCain. Mr. Yonkers, if confirmed, how would you ensure 
an open, transparent process?
    Mr. Yonkers. If confirmed, I understand one of my responsibilities 
would be to chair the Air Force Strategic Basing Executive Steering 
Group (SB-ESG) which oversees basing decisions and is intended to 
ensure a standardized, transparent, and repeatable process in 
determining overall Air Force basing opportunities. As the SB-ESG 
evaluates basing decisions, I would work to ensure the Air Force shares 
information with appropriate congressional members and responds to 
questions throughout the process. Additionally, I would expect to use 
the Environmental Impact Analysis Process to solicit comments from 
members of the community and community leaders. This should help ensure 
a process that incorporates public concerns and comments as part of the 
final basing decisions issued in the Record of Decision.

    16. Senator McCain. Mr. Yonkers, concerning the objective data 
being used by the Air Force to assess bases, do you agree that a public 
review of this data will ensure that Air Force leaders have accurate 
and current information prior to subsequent basing decisions?
    Mr. Yonkers. I believe the Air Force has implemented a new 
Strategic Basing Process which should help ensure congressional 
members, State and local officials and the communities surrounding all 
Air Force installations are informed on what basing decisions are being 
made and the reasoning behind the decisions. I have read the basing 
process and agree it should ensure the data used to make up the 
objective basing scores will be accurate, current, and verifiable. This 
process, in conjunction with the Environment Impact Analysis Process 
required for all basing decisions will ensure that all operational and 
environmental facets are appropriately assessed as part of the final 
basing decision.

    17. Senator McCain. Mr. Yonkers, what is your understanding of the 
current Air Force plan for a public review of the data used to assess 
bases for the F-35?
    Mr. Yonkers. I am aware of the Air Force Strategic Basing process 
but do not have insight into the current Air Force plan for the public 
review of the data used to assess bases for the F-35. If confirmed, I 
will support the Air Force's commitment to following a standardized, 
transparent and repeatable process for making basing decisions.

    18. Senator McCain. Mr. Yonkers, please provide the current 
planning timeline for the Air Force to select bases and commence F-35 
operations.
    Mr. Yonkers. I'm not in a position at this time to know the details 
of the Air Force plans or schedule to select bases and commence F-35 
operations. If confirmed, I look forward to understanding the Air Force 
timeline and how I can best support it.

                   ameliorating threat of litigation
    19. Senator McCain. Mr. Yonkers, you mentioned in answers provided 
to the committee prior to this hearing about a question concerning 
potential litigation as a result of the NEPA process that ``Factors 
that can contribute to the possibility of litigation include--but are 
not limited to--issues associated with the Clean Air Act, Endangered 
Species Act, aircraft noise, and historic preservation or simply not 
appropriately complying with the NEPA process.'' If confirmed, what 
would you propose to mitigate these factors related to the F-35, so 
that basing decisions can be implemented quickly?
    Mr. Yonkers. The NEPA is a process that requires identification, 
assessment, and mitigation of possible environmental impacts. The NEPA 
evaluation includes impacts to air quality, water quality, endangered 
species, historic buildings and assets, impacts from noise, and a 
number of other environmental factors. If confirmed, I will become 
knowledgeable about the F-35 NEPA process and its progress as well as 
the mitigation measures proposed in the mitigation plan to ensure the 
F-35 basing decisions can be implemented as quickly as practicable.

    process for awarding in indefinite delivery/indefinite quantity 
                               contracts
    20. Senator McCain. Mr. Yonkers, the Air Force recently awarded to 
several vendors an indefinite delivery/indefinite quantity contract, 
known as Worldwide Environmental Restoration and Construction 2009 
(WERC 09), to provide a range of environmental remediation and clean-up 
services with an estimated cost of $3.0 billion over the next 5 years. 
As the nominee to be the Assistant Secretary of the Air Force for 
Installations and Environment, your position will require you to 
provide overall policy and guidance for the Air Force's environmental 
programs, including determining budgets and funding decisions regarding 
environmental actions. The amount of the funds requested annually for 
Air Force environmental programs in budget requests to Congress will 
have a direct impact on the number and amount of delivery orders issued 
under WERC 09. Furthermore, your office will provide the primary 
appointed civilian oversight Air Force environmental programs, 
including the execution of delivery orders carried out by the Air Force 
Center for Engineering and the Environment (AFCEE) under WERC 09. If 
confirmed as Assistant Secretary of the Air Force for Installations and 
Environment, what roll and responsibilities would you have, if any, in 
assisting in the development of Air Force budgets for environmental 
program?
    Mr. Yonkers. I understand the requirements and initial budget 
estimates for the Air Force's environmental program are identified at 
the installation, major command, or service center level and then 
vetted through the Air Force corporate process. One of the final steps 
of this process is a roll-up of all Air Force programs and requirements 
at the Air Force Council level which I will be a member, if confirmed. 
The Council's responsibility is to balance the critical needs of the 
Air Force across all program areas and make recommendations to the 
Secretary and the Chief of Staff of the Air Force to be incorporated 
into the DOD's President budget.

    21. Senator McCain. Mr. Yonkers, are you aware of the process that 
AFCEE will use to award each delivery order under WERC 09? If so, 
please describe them.
    Mr. Yonkers. I am generally aware that the AFCEE is responsible for 
executing the environmental programs for the Air Force including the 
development of task orders, evaluation of responses to proposals, award 
of those task orders and overseeing the performance of contractors in 
completing the work required under a task order. I also understand that 
the AFCEE develops the criteria including the contracting method used 
to evaluate proposals and award each delivery order. I understand and 
expect that AFCEE would follow a similar process with regard to task 
orders awarded under WERC 09.

    22. Senator McCain. Mr. Yonkers, in your opinion, for the selection 
of contractors for task or delivery orders, is the current process 
open, transparent, and based on competitive assessments of the best 
value to the Government? Why or why not?
    Mr. Yonkers. It is my understanding that the Civil Engineer who 
reports through command channels to the Chief of Staff of the Air Force 
is responsible for execution of the Air Force's environmental program. 
The actual development of task orders and the selection of awardees are 
the responsibility of the AFCEE. I understand that AFCEE uses industry 
days and other such venues to help them develop appropriate acquisition 
strategies for their contracts and that these venues are open to all 
contractors. Generally, I believe the AFCEE uses competitive 
assessments in accordance with laws and guidance, when awarding task 
orders.

    23. Senator McCain. Mr. Yonkers, are you aware of any Air Force 
policy or guidance that would govern the award of task or delivery 
orders that are to be awarded to each contractor under WERC 09? If so, 
please explain.
    Mr. Yonkers. I am aware that Air Force policies and instructions 
already in place establish broad goals and objectives with regard to 
the Air Force's environmental programs and expectations. These policies 
and instructions cover a wide array of environmental programs and 
requirements covering the four main pillars of the Air Force's 
environmental program: remediation, pollution prevention, compliance, 
and natural/cultural resources. I am not aware that any of these 
policies govern or intend to govern the award of any task or delivery 
order under WERC 09. WERC 09 is executed by AFCEE, under the direction 
of Air Force Civil Engineering, and within the chain of command of the 
Air Force Chief of Staff.

    24. Senator McCain. Mr. Yonkers, what role would you have, if any, 
in issuing task orders under WERC 09 to prime contractors under this 
program?
    Mr. Yonkers. If confirmed, I understand I would have no role in the 
issuance, governance, or execution of task orders under WERC 09. WERC 
09 is managed and executed by AFCEE under the direction of Air Force 
Civil Engineering, and within the chain of command of the Air Force 
Chief of Staff.

    25. Senator McCain. Mr. Yonkers, in your opinion, do the processes 
that apply to the award to task or delivery orders eliminate the 
potential of influence or subjective award of a delivery order? Why or 
why not?
    Mr. Yonkers. From my limited understanding, the current process 
appears open, transparent, and designed to minimize the potential for 
influence or subjective award. I understand the authority to award task 
orders resides solely with the Contracting Officer. There are checks 
and balances within the award process and separate lines of authority 
that prevent undue influence within the award process.

    26. Senator McCain. Mr. Yonkers, are the processes to be used by 
AFCEE for task or delivery order awards formally published and adopted 
as a regulation or other guiding document? If so, please provide those 
regulations or other documents to your response.
    Mr. Yonkers. I understand the Federal Acquisition Regulation 
addresses and governs the award of task orders and delivery orders.

    27. Senator McCain. Mr. Yonkers, what special steps, if any, would 
you take to ensure that others might not purposefully or inadvertently 
make decisions that might result in the inappropriate awarding of task 
or delivery orders under this program?
    Mr. Yonkers. I understand the Assistant Secretary (Installations, 
Environment, and Logistics) does not have a role in the execution or 
governance of task orders administered by the AFCEE or other Air Force 
service centers. From my experience, I believe that the acquisition 
processes and professionals, especially contracting officers are very 
good at complying with both the letter and intent of the procurement 
laws. I believe that the process, including numerous checks and 
balances are in place to avoid inadvertent decisions or inappropriate 
award of task or delivery orders.
    If confirmed, I would continue to support the separation of policy 
and execution authority. I would work closely with the General Counsel 
of the Air Force to eliminate any appearance of influence by the 
Assistant Secretary (Installations, Environment, and Logistics) on the 
task order selection process.
                                 ______
                                 
    [The nomination reference of Terry A. Yonkers follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 3, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Terry A. Yonkers of Maryland, to be an Assistant Secretary of the 
Air force, vice William Anderson, resigned.
                                 ______
                                 
    [The biographical sketch of Terry A. Yonkers, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Terry A. Yonkers
                               education
    Hemet High School, attended 1963-1967 (diploma awarded June 1967)
    Mt San Jacinto JC, attended 1967-1969 (degree: AA awarded June 
1969)
    University of California, Riverside, attended 1969-1972 (BS, 
biology, awarded June 1972)
    University of California, Riverside, 1972-1973 (Secondary Teaching 
Credential awarded June 1973)
    National Defense University, 1992-1993 (Diploma of completion 
awarded July 1993)
    Federal Executive Institute, 1997 Carnegie Mellon University, 
Program for Executives, 1999
    Massachusetts Institute of Technology, Seminars in International 
Relations and National Security, 2000
    George Mason University, 1998-2000 (Masters of Public Admin awarded 
Jan 2001)

                           employment record
    2002 to present. ARCADIS U.S., Inc. 630 Plaza Drive, Highlands 
Ranch, CO.
    Senior Vice President, Federal Business Development Director, Jan. 
2000-June 2001. U.S. Air Force, 1660 Pentagon, Washington DC.
    Acting Deputy Assistant Secretary (Environment, Safety, and 
Occupational Health). Nov. 1996-Dec. 2000, U.S. Air Force, 1660 
Pentagon, Washington DC.
    Supervisory Environmental Engineer and Special Assistant to the 
Assistant Secretary for Manpower, Reserve Affairs, Installations and 
Environment.
    1990-1996. Air Force Base Conversion Agency (BRAC), Director of 
Environmental Programs.
    1986-1990. Air Force Systems Command, Deputy Director of 
Environmental Programs.
    1984-1986. Air Force Regional Civil Engineer, Dallas Region. 
Environmental Engineer and Regulatory Liaison.
    1980-1984. Air Force Flight Test Center, Edwards AFB, CA. 
Environmental Engineer.

                           honors and awards
    Air Force Outstanding Civilian Service Award (May 2002)
    Secretary of Air Force--Letter of Recognition (March 2000)
    Air Force National Capital Region Work Force Mentoring Program, 
Certificate of Appreciation (September 2001/2000)
    Air Force Organizational Excellence Award (1998)
    Air Force Systems Command finalist for General Thomas D. White 
award (1986)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Terry A. 
Yonkers in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Terry Arthur Yonkers.

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Installations, Environment, 
and Logistics).

    3. Date of nomination:
    August 3, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 5, 1949; Hemet, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mari Helen Yonkers (Maiden Name: Norwood).

    7. Names and ages of children:
    Timmothy Raul Yonkers, age 38; Tammara Jonese Lightie, age 35.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Hemet High School, attended 1963-1967 (diploma awarded June 1967).
    Mt San Jacinto JC, attended 1967-1969 (degree: AA awarded June 
1969)
    University of California, Riverside, attended 1969-1972 (BS, 
biology, awarded June 1972)
    University of California, Riverside, 1972-1973 (Secondary Teaching 
Credential awarded June 1973)
    National Defense University, 1992-1993 (Diploma of completion 
awarded July 1993)
    Federal Executive Institute, 1997
    Carnegie Mellon University, Program for Executives, 1999
    Massachusetts Institute of Technology, Seminars in International 
Relations and National Security, 2000
    George Mason University, 1996-2000 (Masters of Public Admin awarded 
Jan 2001)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    July 2002 to present. ARCADIS U.S., Inc. 630 Plaza Drive, Highlands 
Ranch, CO, Senior Vice President, Federal Business Development Director
    Jan. 2000-June 2002. U.S. Air Force, 1660 Pentagon, Washington DC, 
Acting Deputy Assistant Secretary (Environment, Safety, and 
Occupational Health).
    Nov. 1996-Dec. 2000. U.S. Air Force, 1660 Pentagon, Washington DC, 
Supervisory Environmental Engineer and Special Assistant to the 
Assistant Secretary for Manpower, Reserve Affairs, Installations and 
Environment. Represented the ASAF on corporate POM and budget 
committees, developed, and managed environmental policies and programs, 
spearheaded special projects e.g., SAF/MI manpower and reorganization 
initiative.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1990-1996, Air Force Base Conversion Agency (BRAC), Director of 
Environmental Programs
    1986-1990, Air Force Systems Command, Deputy Director of 
Environmental Programs
    1984-1986, Air Force Regional Civil Engineer, Dallas Region. 
Environmental Engineer and Regulatory Liaison
    1980-1984, Air Force Flight Test Center, Edwards AFB, CA. 
Environmental Engineer

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Senior Vice President, ARCADIS U.S., Inc.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    President, Ashley II Homeowners Association, Davidsonville, MD.
    Society of American Military Engineers, Chairman of Global Climate 
Change Committee.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Hillary Clinton for President, 9/18/2007 - $1,000
    Sestak for Congress, 6/18/2007 - $500
                        09/27/2007 - $500
                        12/27/2007 - $200
                        06/23/2009 - $300
    Obama Victory Fund, 9/18/2008 - $1,000
    Obama for America, 9/30/2008 - $1,000.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Air Force Outstanding Civilian Service Award (May 2002)
    Secretary of Air Force - Letter of Recognition (March 2000)
    Air Force National Capital Region Work Force Mentoring Program, 
Certificate of Appreciation (September 2001/2000)
    Air Force Organizational Excellence Award (1998)
    Air Force Systems Command finalist for Gen. Thomas D. White award 
(1986)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    The Military Engineer, ``Climate Changes & National Security'', co-
author.
    Magazine of the Society of American Military Engineers, No. 657, 
Jan.-Feb. 2009.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Terry A. Yonkers.
    This 28th day of August, 2009.

    [The nomination of Terry A. Yonkers was reported to the 
Senate by Chairman Levin on December 2, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 4, 2010.]


 
NOMINATIONS OF DR. CLIFFORD L. STANLEY TO BE UNDER SECRETARY OF DEFENSE 
 FOR PERSONNEL AND READINESS; ERIN C. CONATON TO BE UNDER SECRETARY OF 
  THE AIR FORCE; AND LAWRENCE G. ROMO TO BE DIRECTOR OF THE SELECTIVE 
                             SERVICE SYSTEM

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, E. Benjamin 
Nelson, Udall, Burris, McCain, Thune, and LeMieux.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Gabriella Eisen, counsel; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
counsel; Jason W. Maroney, counsel; William G.P. Monahan, 
counsel; John H. Quirk V, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Daniel A. Lerner, professional staff member; 
Lucian L. Niemeyer, professional staff member; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Jennifer R. Knowles and Breon N. 
Wells.
    Committee members' assistants present: Christopher Caple, 
assistant to Senator Bill Nelson; Ann Premer, assistant to 
Senator Ben Nelson; Patrick Hayes, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Jennifer 
Barrett, assistant to Senator Udall; Roosevelt Barfield, 
assistant to Senator Burris; Anthony J. Lazarski, assistant to 
Senator Inhofe; Jason Van Beek, assistant to Senator Thune; and 
Brian W. Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of Dr. Clifford Stanley 
to be Under Secretary of Defense for Personnel and Readiness; 
Ms. Erin Conaton to be Under Secretary of the Air Force; and 
Mr. Lawrence Romo to be Director of the Selective Service 
System.
    We welcome our nominees and their families to today's 
hearing. Senior Department of Defense (DOD) officials put in 
long and uncertain hours and we appreciate very much the 
sacrifices all of our nominees make to serve their country, 
their continuing sacrifices in most of their cases. But their 
families deserve equal gratitude for the support that they 
provide, because that support is essential to the success of 
these officials.
    Today's nominees are highly qualified for the positions to 
which they've been nominated. Dr. Stanley served 33 years in 
the Marine Corps, became the Marines' first African American 
regimental commander, and retired in 2002 as a two-star 
general. Since that time, Dr. Stanley has served as Executive 
Vice President of the University of Pennsylvania and President 
of Scholarship America.
    If confirmed, he will be the principal advisor to the 
Secretary of Defense on the recruitment, retention, pay and 
benefits, health care, readiness, and quality of life of the 
men and women of our Armed Forces. He will also be the primary 
official responsible for shaping and developing DOD's 680,000-
person civilian workforce as the Department implements the 
Secretary's new hiring plan.
    Ms. Conaton has served as Research Staff Director for the 
Hart-Rudman Commission on National Security in the 21st 
Century, a professional staff member of the House Armed 
Services Committee, and most recently as the Staff Director of 
the House Armed Services Committee. If confirmed, she will be 
the second-ranking official in the Department of the Air Force 
and will serve as the Chief Management Officer of the Air 
Force. Previous Under Secretaries have also been designated 
DOD's Executive Agent for Space. We do not know yet whether Ms. 
Conaton will exercise this responsibility.
    Ms. Conaton is, of course, well known to all members of our 
committee for her hard work, and her capable leadership in our 
conferences on the National Defense Authorization Act. I am 
confident that we're going to be able to forgive her for her 
persistence in supporting the House position in these 
conferences, and I think the person sitting to her right is 
very well aware of just how well she did in her persistence and 
how she accomplished things which should not have been 
accomplished.
    Mr. Romo retired as a lieutenant colonel after a career in 
the Air Force Reserves. He's currently Soldier and Family 
Assistance Program Manager for the Army's Fifth Recruiting 
Brigade and an Admissions Liaison Officer for the Air Force 
Academy. If confirmed, he will be responsible for managing the 
Selective Service System of our country.
    We look forward to the testimony of our nominees and to 
their speedy confirmation. I now call upon Senator McCain, and 
then we will quickly call upon our dear friend, Ike Skelton, 
for an introduction.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I welcome our 
friend Congressman Skelton, Chairman of the House Armed 
Services Committee, who is here with a mistaken mission this 
morning. But we're always happy to see him and we very much 
appreciate the environment that persists, thanks to the efforts 
of Ms. Conaton and our staff, that makes us work successfully 
together and maintaining a record of defense authorization 
bills being signed by the President of the United States for 
many years now.
    I welcome all the nominees and their families. I thank them 
for their willingness to serve in these key leadership 
positions. Dr. Stanley, the nominee to be the Under Secretary 
of Defense for Personnel and Readiness, has a distinguished 33-
year career as a Marine Corps officer, culminating in his 
assignments as Commanding General, Marine Corps Air-Ground 
Combat Center, Twentynine Palms, and Deputy Commanding General, 
Marine Corps Combat Development Command in Quantico. His 
employment as President of Scholarship America demonstrates his 
commitment to public service and the importance of education 
and personnel development.
    The manpower and readiness challenges facing DOD and the 
Services in this 8th year of the war on terrorism are many. In 
your advance policy question responses, you identified the 
challenges of continuing to sustain the All-Volunteer Force and 
ensuring appropriate compensation and personnel policies, 
quality health care, and essential support to military families 
and wounded warriors. I agree with you and I would add that the 
challenge of formulating policies and programs aimed at 
ensuring the highest possible readiness of our personnel and 
operational units during a time of great stress, at preventing 
sexual assaults and suicides, at bringing under control the 
rising costs of personnel as an overall part of the DOD budget 
without eroding readiness, at restructuring the national safety 
personnel system and creating an acquisition workforce that is 
capable of delivering weapons systems on time and within 
budget.
    Dr. Stanley, I would be remiss if I didn't mention the 
challenge that will probably fall under your purview of 
eliminating or changing the DOD homosexual conduct policy. As 
I've stated before, I believe that the current ``Don't Ask, 
Don't Tell'' policy works, is not a failure, as some have 
proclaimed. I would be opposed to any attempt to modify 
existing policy in ways that will harm military readiness or 
place upon the shoulders of military leaders an extra burden 
that they simply do not need.
    If change in policy is contemplated, it should be 
accompanied by input and studies by the Joint Chiefs, input by 
people like yourself, hearings, and votes before this 
fundamental policy, which has worked successfully in my view, 
is changed for political reasons.
    Ms. Conaton, the nominee for the position of Under 
Secretary of the Air Force, is currently the Staff Director for 
the House Armed Services Committee, and I know you'll be missed 
by Chairman Skelton. You'll be missed by all of us. You've done 
an outstanding job and I congratulate you for all the work 
you've done. You'll be an asset to Secretary Donley and General 
Schwartz, and I congratulate you on your nomination.
    Mr. Romo is the nominee to be the Director of the Selective 
Service System. An Air Force Academy graduate, Mr. Romo served 
over 20 years in the Air Force and Air Force Reserve. Since 
1999, as a civilian employee of the Army's Recruiting Command 
he has headed up the Soldier-Family Assistance Program in the 
San Antonio, TX, region.
    The Selective Service System, while an independent agency, 
continues to be an important element in our national defense 
planning. The all-volunteer military as a strategic national 
resource has never been more capable and respected. I certainly 
hope we'll never face the requirement to reinstate the draft. 
It's essential that we retain the Selective Service System and 
the means to do so.
    I look forward to the testimony of the nominees today and I 
again thank them and all their families for their service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain. I am 
going to submit Sentor Burris' statement for the record.
    [The prepared statement of Senator Burris follows:]
             Prepared Statement by Senator Roland W. Burris
    Thank you, Mr. Chairman, and welcome nominees.
    I am again pleased with the nominations that President Obama has 
chosen to run these essential positions within our Government. The 
President and I agree that the candidates before us today show the 
dedicated leadership that is so integral to serving the American 
people. The Nation is looking to you nominees to play a major role in 
redirecting our efforts to benefit and protect all of our citizens--
including servicemembers and taxpayers alike.
    Now, I would like to take a moment to commend the President on his 
selection of these nominees and I look forward to these nominations 
moving quickly as we work on the ambitious agenda we have all 
undertaken. There is an opportunity for our partnership to foster real 
change and I look forward to our mutual cooperation for the benefit of 
this great Nation.
    Thank you Mr. Chairman.

    Chairman Levin. Now we're going to call upon our good 
friend Chairman Ike Skelton of the House Armed Services 
Committee for an introduction. We welcome you enthusiastically, 
Ike. It's always great to see you.

  STATEMENT OF HON. IKE SKELTON, U.S. REPRESENTATIVE FROM THE 
                       STATE OF MISSOURI

    Mr. Skelton. Thank you, Senator. It's an honor to be here 
this morning, Mr. Chairman, Senator McCain. It's a bittersweet 
moment for me. I'm here to recommend and urge the confirmation 
of Erin Conaton, the Staff Director of the House Armed Services 
Committee, to be the Under Secretary of the U.S. Air Force.
    Seldom is there a combination or confluence of talent, good 
judgment, knowledge, devotion to duty, common sense, and, as we 
say in Missouri, good get-along, particularly someone who is of 
the tender age of Erin Conaton. She's a remarkable young lady.
    We on the Armed Services Committee have been the 
beneficiaries of her hard work, good judgment, and fantastic 
talent. I know that the Air Force will be in good hands. She's 
a good manager. She handles people very well. She's respectful 
and her knowledge is as good as anyone I have ever run into in 
a position comparable to hers.
    I ask that my formal remarks be placed in the record.
    Educated at Georgetown, Tufts University, on the Hart-
Rudman Commission as a staffer, as you mentioned in your 
opening remarks, she came as a staff member of the House Armed 
Services Committee, and when I became the ranking member she 
was the ranking staff director, and now since we've been in the 
majority she has been the director and has run the House Armed 
Services Committee as well as anyone in the history of my some 
33 years in this Congress.
    I'm privileged to know her. We are all privileged to have 
been the beneficiaries of her fantastically first-rate work, 
and she's a good friend. I know that our country will be in not 
just good hands, but better hands, with her as Under Secretary 
of the Air Force.
    I sincerely urge her confirmation and I know she will make 
us all proud.
    [The prepared statement of Representative Skelton follows:]
            Prepared Statement by Representative Ike Skelton
    Thank you, Mr. Chairman and Senator McCain.
    I'm honored to speak today in support of Erin C. Conaton's 
nomination to be the Under Secretary of the Air Force. Most of you are 
already well-acquainted with Erin, and some of you have worked with her 
throughout the years of her tenure as a staff member on the House Armed 
Services Committee.
    I have come to depend upon Erin Conaton as a trusted advisor and 
friend since she joined the House Armed Services Committee staff in 
2001. While I am not happy about the prospect of losing her to the 
Pentagon and no longer working with her on a daily basis, I know that 
her talents are suited to taking on the responsibilities of Under 
Secretary of the Air Force.
    The combination of Erin's integrity, intelligence, and experience 
in the ways of Capitol Hill and the Pentagon would make her extremely 
valuable to any organization, and I believe the Air Force would be very 
fortunate to have her on board. There is no doubt in my mind that the 
Pentagon, the Obama administration, and our country would be well 
served by Erin's confirmation by the Senate.
    Erin has an impressive academic and professional background. She 
holds a bachelor's degree from Georgetown University's School of 
Foreign Service and a master's degree from the Fletcher School of Law 
and Diplomacy at Tufts University. Before becoming a congressional 
staffer, Erin was highly recommended to me as a result of her 
outstanding work as the Research Staff Director for the U.S. Commission 
on National Security/21st Century, also known as the Hart-Rudman 
Commission.
    Erin joined the House Armed Services Committee staff in 2001, 
serving as a professional staff member covering a range of defense 
policy issues. In 2005, she became the committee's minority staff 
director. At the start of the 110th Congress in 2007, Erin assumed the 
post of majority staff director, serving all of the members of our 
committee and overseeing the committee's 70-person staff.
    In the 9 years that I have had the privilege to know and work 
closely with Erin, she has consistently demonstrated her leadership 
ability, mastery of national security issues, and dedication to our men 
and women in uniform. Erin's work ethic is unparalleled, but more 
importantly, she has a rare gift for getting along with people. Despite 
the demands of working on Capitol Hill, Erin is unflappable and 
approaches every challenge with a level head, whether working with 
Members of Congress, congressional staff, or administration officials.
    I'm delighted that the Obama administration recognized that Erin 
Conaton would be an excellent nominee for the next Under Secretary of 
the Air Force. I can't brag on her enough, and I respectfully urge the 
Senate Armed Services Committee to recommend that the Senate confirm 
Erin's nomination as quickly as possible. I know Erin will make us 
proud as she continues her career in public service with the Department 
of the Air Force.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much, Chairman Skelton. I 
know how much that extraordinary tribute and introduction means 
to Ms. Conaton, and it does mean a great deal to us as well.
    Your entire statement will of course be made a part of the 
record. We know that you have a heavy load on your schedule, so 
that you are excused. You're free to leave at any time that you 
wish.
    Let me now ask all three of our witnesses the standard 
questions, and then we'll call upon each of them for their 
opening statements. They can introduce families or whoever else 
that is with them that they would like to introduce. Here are 
the standard questions that we ask all three of you:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Dr. Stanley. Yes.
    Ms. Conaton. Yes, Senator.
    Mr. Romo. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Stanley. No, Senator.
    Ms. Conaton. No, Senator.
    Mr. Romo. No, Senator.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Dr. Stanley. Yes, Senator.
    Ms. Conaton. Yes, Senator.
    Mr. Romo. Yes, Senator.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to Congressional requests?
    Dr. Stanley. Yes, Senator.
    Ms. Conaton. Yes, Senator.
    Mr. Romo. Yes, Senator.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Stanley. Yes, Senator.
    Ms. Conaton. Yes, Senator.
    Mr. Romo. Yes, Senator.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Ms. Conaton. Yes, Senator.
    Dr. Stanley. Yes, Senator.
    Mr. Romo. Yes, Senator.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Romo. Yes, Senator.
    Ms. Conaton. Yes, Senator.
    Dr. Stanley. Yes, Senator.
    Chairman Levin. Okay. Now I think in terms of the order 
here for you to give your opening statements and introduce 
people who accompany you today, we'll first call upon you, Dr. 
Stanley, then Ms. Conaton, and then Mr. Romo. That'll be the 
order.
    Dr. Stanley.

   STATEMENT OF DR. CLIFFORD L. STANLEY, NOMINEE TO BE UNDER 
        SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Dr. Stanley. Thank you, Senator. Good morning. Chairman 
Levin, Senator McCain, members of the committee, I appreciate 
the opportunity to appear here today. I thank President Obama 
for having the confidence in me to nominate me to be the Under 
Secretary of Defense for Personnel and Readiness of DOD. I am 
also appreciative to Secretary Gates and Deputy Secretary Lynn 
for their support.
    My wife, Rosalyn, and daughter, Lieutenant Commander Angela 
Stanley, U.S. Navy, are here today. Accompanying my wife is our 
service dog and family companion, Juno. Not present today, but 
serving in uniform, is my niece, Air Force Staff Sergeant 
Michelle Stanley.
    My wife's support throughout my career and the inherent 
challenges associated with special needs as we moved from duty 
station to duty station have afforded me added insights into 
the needs of military families. The service of our daughter, 
niece, and many friends still serving has kept me current on 
many of the issues shared by both men and women currently 
serving in uniform.
    The President and Congress, particularly the members of 
this committee, are working together to support our military, 
their families, and Defense Department personnel serving our 
Nation. If confirmed, I will do my best to ensure optimal 
standards of personnel support and operational readiness.
    That concludes my statement.
    Chairman Levin. Thank you very much, Dr. Stanley.
    Ms. Conaton.

STATEMENT OF ERIN C. CONATON, NOMINEE TO BE UNDER SECRETARY OF 
                         THE AIR FORCE

    Ms. Conaton. Thank you, Chairman Levin. Let me just say at 
the outset, thank you to you, Senator McCain, and to 
Representative Skelton, for those extraordinarily kind words.
    It's an honor to appear before all of you today and an 
honor to be nominated for this position. At the outset, I would 
like to thank President Obama for nominating me and Secretary 
Gates, Deputy Secretary Lynn, and Secretary Donley for 
supporting this nomination. If confirmed, I greatly look 
forward to working with all of them.
    My current boss and mentor, Chairman Skelton, likes to note 
Cicero's adage that gratitude is the greatest of all virtues. 
I've always agreed with him in this and all things, and in that 
regard I need to say a few more words of thanks.
    First, I have a lot of friends and family here today. It's 
not an understatement to say that I would not be here without 
their unwavering support. I'd like to acknowledge my parents, 
Stan and Pat; my aunt and uncle, Judy and Tom; my brother and 
sister-in-law, Sean and Erin; my sister and her partner, Meg 
and Drew. But most especially, I'm thrilled that my 2-year-old 
niece Nora can be here today and that her 4-year-old brother 
William was able to be excused from pre-school to be here with 
us.
    Chairman Levin. He would have probably been here even if he 
weren't excused. [Laughter.]
    Ms. Conaton. I think that's right.
    Second, I'm confident that I would not be nominated for 
this position if it was not for the gentleman from Missouri, 
Chairman Ike Skelton. I have benefited greatly from his wisdom, 
counsel, and from his friendship. He's already provided me some 
additional wisdom in the event that I'm confirmed by reminding 
me that I should always ask myself, what would Harry Truman do.
    I have to admit that the prospect of not working directly 
with him every day made the choice to accept this nomination 
very difficult. I can only hope that I will make him proud if 
confirmed to this position.
    Finally, I would like to thank the tremendous staff 
associated with this committee and the staff of the House Armed 
Services Committee, which I have been privileged to lead. These 
staffs, both those who work in member offices and those who 
serve the committees directly, are extraordinary professionals. 
I have been privileged to work with them over these years and I 
have learned much from our debates, deliberations, and 
friendships.
    Mr. Chairman, this committee knows well the challenges 
facing the Air Force and has been instrumental in efforts to 
address them. The Air Force is a great Service, with a proud 
history and a commitment to service shared by the nearly 
700,000 members of the Air Force family, Active Duty, Reserve, 
National Guard, and civilians. If confirmed, I would consider 
it a privilege to become part of that family and to help 
Secretary Donley, General Schwartz, and General Chandler in 
their strong leadership of this Service. I would also welcome 
the opportunity to contribute to the joint effort, working with 
the other Services, the team that makes up the Office of the 
Secretary of Defense, and Congress.
    I also would like to say what an honor it is to be on the 
same panel as Dr. Stanley and Mr. Romo, and I would look 
forward to working with both of them.
    With that, Mr. Chairman, I thank you, Senator McCain, and 
the committee again for this opportunity, and I look forward to 
your questions.
    Chairman Levin. Thank you so much, and again our thanks for 
your great service to the House committee and the way in which 
you've worked with our staff as well. I know your comments are 
appreciated by them and appreciated by us.
    Mr. Romo.

 STATEMENT OF LAWRENCE G. ROMO, NOMINEE TO BE DIRECTOR OF THE 
                       SELECTIVE SERVICE

    Mr. Romo. Chairman Levin, Ranking Member McCain, and 
members of the committee, good morning. I'm indeed honored and 
humbled that President Obama has expressed his confidence in me 
to become the 12th Director of Selective Service. Pending 
Senate confirmation, I look forward to serving my country in 
this unique position.
    At one time or another, I think most of us have dreamt 
about being in place in charge of an organization where we can 
make a difference. If I am confirmed as Director, you will be 
placing me in a fortunate situation as someone who is very 
interested in national security and our Armed Forces. I believe 
I am highly qualified to preserve the best aspects of a proud 
agency that has a distinguished 69-year history, while making 
improvements to operational efficiency, motivating employees 
and volunteers, and boosting morale.
    The Selective Service System is an important Federal agency 
with dedicated people doing terrific work, but there is always 
room for improvement. I know about people and I have studied 
how the Selective Service System operates. I understand its 
importance to national defense and readiness as America's only 
proven defense manpower insurance for our Nation's all-
volunteer military. I stand ready to make the needed 
improvements to the agency's structure and priorities and 
defend its budget and necessary existence as a key component of 
our national defense.
    Because of personal experiences with the military and our 
wonderful veterans, I also understand and believe in the role 
that every young man must play with regard to the Selective 
Service. I will encourage the 2 million men reaching age 18 
every year in the United States that they must live up to their 
patriotic, legal, and civic obligation to help provide for the 
common defense by registering with the Selective Service.
    With your support, I stand ready to take up the challenges 
of this important assignment, and I thank you for considering 
me. I want to thank you all for the service you do to our 
country.
    Chairman Levin. Thank you so much, Mr. Romo.
    Let me start asking questions of Dr. Stanley. Dr. Stanley, 
our servicemembers and their families are under severe stress. 
One component of the stress is the repeated and lengthy combat 
deployments, especially in the Army and the Marine Corps, and 
the lack of adequate dwell time for our servicemembers. What 
can you tell us about your views on that issue and what would 
be your plans and hopes in terms of that challenge?
    Dr. Stanley. Yes, Senator. As I alluded to in my opening 
statement, the All-Volunteer Force is actually going to be one 
of the top priorities, if confirmed.
    The All-Volunteer Force is actually one of the highest 
priorities. Under that subset of the All-Volunteer Force is, of 
course, wounded warrior, dwell time issues, family issues, the 
stress that's affecting our military today. So if confirmed, I 
promise that that will be one of the top priorities that I'll 
be focusing on as Under Secretary of Defense for Personnel and 
Readiness.
    Chairman Levin. Dr. Stanley, in April, Secretary Gates 
determined that DOD had gone too far in relying on service 
contractors to perform basic functions and announced that the 
Department would seek to substitute civilian employees for 
contractors in critical roles. He stated: ``Our goal is to hire 
as many as 13,000 new civil servants in fiscal year 2010 to 
replace contractors and up to 30,000 new civil servants in 
place of contractors over the next 5 years.''
    Would you agree that the civilian employee workforce of the 
Department plays a critical role in the success of the 
Department's activities, and if confirmed will you make the 
planning and management of that change and of the civilian 
workforce a high priority?
    Dr. Stanley. Yes, Senator, I would and I do.
    Chairman Levin. Our servicemembers have now been fighting 
in Operations Enduring Freedom and Iraqi Freedom for many 
years, and the wear on our servicemembers and their families 
continues to grow. Timely access to mental health care for both 
servicemembers and their families must be a priority as these 
brave men and women work through what they've experienced in 
combat and the hardships that they faced at home while their 
loved ones are away at war.
    What efforts should be undertaken to increase the number of 
mental health professionals available to servicemembers and 
their families?
    Dr. Stanley. Mr. Chairman, as I understand it, we know that 
the mental health stress on our troops, their families, and 
really also the entire DOD is very significant. If confirmed, 
this would be an area that I would put a lot of emphasis in. We 
know that right now probably one of the most important things 
that I could do if confirmed would be to actually ensure that 
we have the right people selected to help with that process of 
selecting the best people as we look at these difficult, 
challenging issues of stress within the Armed Forces.
    Chairman Levin. By the way, I didn't announce this before, 
but let's have a 9-minute first round for questioning.
    Senator McCain made reference to the ``Don't Ask, Don't 
Tell'' policy. The President has made it clear that he would 
like to see that Federal statute repealed. You will be 
responsible for leading the implementation of any change in the 
policy within DOD if that policy is changed. Before it's 
changed, there will, of course, be significant input from the 
uniformed military and from others. There will be hearings, of 
course, before any change is voted on, and then there will be 
votes to determine whether in fact such a change should take 
place.
    If you are confirmed, will you give us your best objective 
opinion on the question of whether or not ``Don't Ask, Don't 
Tell'' should be maintained or dropped?
    Dr. Stanley. Yes, Senator, I will.
    Chairman Levin. Ms. Conaton, the Under Secretary position 
also serves as the chief management officer of the Air Force, 
as I mentioned. We established that provision in 2007 out of 
the frustration that we had with the inability of the military 
departments to modernize their business systems and their 
processes. We chose to have the Under Secretary serve 
concurrently as chief management officer because no other 
official in the Air Force other than the Secretary sits at a 
high enough level to cut across stovepipes and implement 
comprehensive change.
    I think you've given us one of the great opportunities that 
we'll have to achieve a comprehensive change because you know 
this subject so well. Will you make modernization of the Air 
Force's business systems and processes a top priority?
    Ms. Conaton. Yes, Senator, I will.
    Chairman Levin. Give us an idea, if you can, how you're 
going to balance your duties as the chief management officer 
with the other duties that you'll have as Under Secretary?
    Ms. Conaton. Yes, thank you, Chairman Levin. My 
understanding of the roles and responsibilities of this 
position is that as Under Secretary of the Air Force I would be 
responsible for being the principal assistant and deputy to the 
Secretary and to take on such roles and responsibilities as he 
sees as appropriate.
    In addition to that, you point out rightly--and obviously I 
was involved from the Hill perspective in helping to give the 
responsibility to this position for chief management officer. I 
think you're right to point out the daunting nature of that 
task. I've been informed that the Air Force already has an 
office dedicated to the chief management officer's 
responsibilities up and running. If confirmed, I'll look 
forward to working with them to see how far along they are and 
be able to give you by best assessment of where we stand and to 
balance those duties with the other things that Secretary 
Donley would ask me to take on.
    Chairman Levin. The efforts to improve business systems in 
DOD, for instance by purchasing commercial off-the-shelf 
systems, frequently fail because too many people in the 
Department want to keep doing things the same way that they've 
always been done, refuse to give up unique business processes 
and data requirements that don't fit into new systems.
    Instead of instituting approaches that have worked in the 
private sector, the Department ends up spending hundreds of 
millions, indeed billions, to tailor off-the-shelf systems to 
interface with obsolete systems and to meet the unique demands 
of DOD users. Now, such changes have resulted in delays, 
duplication, added expense, and system failure.
    Do you believe that you will have the authority needed to 
work across stovepipes and to drive the change in the Air 
Force's business processes that is so needed, so much needed to 
effectively implement new business systems?
    Ms. Conaton. Yes, Mr. Chairman, I believe that is the 
intent of the law as it was passed by this Congress and that is 
the way it is being implemented in the Department. If I find 
upon confirmation that there are additional authorities needed, 
I would certainly let this committee know that.
    Chairman Levin. That was my next question: Will you let us 
know promptly when you've run into those obstacles if you need 
additional authorities, because this has been a longstanding 
goal of this committee, indeed the House committee and 
Congress. So if you'll do that we would appreciate it.
    Ms. Conaton. Yes, Mr. Chairman.
    Chairman Levin. On the question of the next tanker 
aircraft, do you agree that the new tanker is needed, first of 
all, I assume?
    Ms. Conaton. Yes, sir.
    Chairman Levin. But will you, in your role, to the extent 
that you are involved, will you bring to that role the 
neutrality, the fairness, the objectivity which is so 
essential?
    Ms. Conaton. Yes, Mr. Chairman. My sense and my commitment 
is to ask questions upon confirmation that would lead to this 
competition being concluded to the best interests of the 
warfighter. I think it's very important that this be a fair and 
open competition and that it be clear to those who see the 
results how the decision was made, and I would look forward to 
being able to ask those questions in a neutral and objective 
manner.
    Chairman Levin. Thank you.
    The issue of climate change and the interrelated issue of 
energy use, and that particularly involves the potential for 
renewable energy use, that issue has been receiving huge and 
needed attention throughout the Government, including here on 
Capitol Hill. The largest user of fossil fuels in the Federal 
Government is DOD, which creates a significant carbon 
footprint, and as a result is going to need to do its part to 
reduce carbon emissions in the years to come.
    Can you give us your views on this challenge and this 
essential effort, so that we can reduce this footprint in a 
significant way?
    Ms. Conaton. Mr. Chairman, I concur with you that DOD and 
indeed the Department of the Air Force are significant users of 
fossil fuels, including in the case of the Air Force for 
aviation fuel. In my capacity as staff director at House Armed 
Services Committee, I'm aware that the Air Force has put in 
place goals for reducing that and for increasing the percentage 
of renewable fuels that are part of the fleet's operation.
    If confirmed, I believe that energy policy will be a 
critical area to look at and one of the responsibilities that I 
would look forward to taking on. Thank you.
    Chairman Levin. Thank you.
    My time is up. I have asked that Senator Ben Nelson take 
over the chairmanship here because I must leave, and I'm very 
much appreciative of his willingness to do so. According to our 
early bird rule, I will call on Senator Udall next and then 
turn the gavel over to Senator Nelson.
    Senator Udall, you're next.
    Senator Udall. Thank you, Mr. Chairman.
    I wanted to start out by giving a special welcome to Ms. 
Conaton. I served in the House Armed Services Committee and 
many people would probably think all that I know is tied to 
Chairman Skelton, but it's actually tied to Ms. Conaton's 
mentorship and her great friendship. So this is an exciting day 
for me as well as for you.
    If I might, I'd like to share a concern with you. It's a 
comment at this time, not a question. I'm sure you're aware 
that the Air Force recently came out with its Joint Strike 
Fighter (JSF) candidate basing selection. I'm still trying to 
understand how the Air Force arrived at some of its 
calculations, and I intend to schedule a briefing with the Air 
Force soon to get some more clarity. I wanted to just let you 
know that's a concern of mine and it'll continue to be a 
concern of mine as we move forward.
    But again, welcome, and I look forward to your confirmation 
process moving quickly and getting to the point where you no 
longer have to say ``if confirmed,'' but it'll be ``I have been 
confirmed and now I can go to work.''
    Ms. Conaton. Thank you, Senator.
    Senator Udall. Great to see you here today.
    Mr. Romo, if I might, a comment as well that I could direct 
your way. As I understand it, current DOD policy prevents 
individuals who fail to register with the Selective Service 
within the legal timeframe between the ages of 18 and 26 from 
joining the military. That seems fair to me. But the same 
policy also prevents them from ever obtaining a Federal job, 
and waivers to the policy are permitted, as there should be, at 
times when circumstances could explain why an individual didn't 
fit into that timeframe.
    But my office has petitioned for a number of Coloradans, 
without success. It seems that, frankly, in some cases the 
punishment may exceed the crime. I'd like to follow up with you 
and see if there isn't some remedy in those cases that have 
merit. I just wanted to bring that to your attention.
    Mr. Romo. Thank you for the question, Senator Udall, and 
thank you for serving the people of Colorado. I spent a good 
time there at the Air Force Academy and I enjoyed my 
experience. Maybe not the first year, but I enjoyed the other 
years.
    Senator Udall. Not the first year.
    Mr. Romo. But in answer to your question, our job is to 
implement the policy that the President and Congress directs. 
You set the standards in the statutes and, candidly, it's up to 
you to decide which way you want to direct us. If you say for 
us to look at different processes, we'll be happy to look which 
way you want to go.
    My job when I'm in there, if confirmed, is to assess and 
evaluate the situation and to optimize the procedure and 
processes. For example, we want to do a quicker turn-around 
when you have inquiries when somebody is looking to get a 
certificate that they registered for Selective Service for a 
student loan, a Federal grant. We want to make sure we have a 
quick turn-around because 90 days is unacceptable right now, 
what I've been told. But that's my position right now.
    Senator Udall. Thank you for that interest and 
clarification. Again, I look forward to working with you to see 
if we can resolve some of these cases in Colorado and perhaps 
look more broadly in those cases where, as I said, the 
punishment may exceed the crime or the oversight.
    Dr. Stanley, great to have you here. I can find fault with 
only one part of your application. It's that you seem to have 
no family members serving in the U.S. Army. You have all the 
other Service branches covered. [Laughter.]
    I'd like to follow up on the same line of questioning and 
comments that the chairman directed your way, starting with the 
mental health of our service men and women. At Fort Carson in 
Colorado and across the country at many installations, there's 
a combination of combat stress and repeated deployments, mental 
illness, failures of leadership, drug and alcohol problems that 
have led to broken soldiers, broken families, and increased 
incidence of suicides and homicides.
    You know and I know there's a stigma attached to mental 
health issues, not just in the military community, but in 
society at large, quite frankly. We can't pass laws to 
eliminate it. I wish we could some days. So it's all the more 
critical, I believe, for our military leaders to stand up and 
demonstrate the courage to talk about this. Our military 
leaders must work to change the culture.
    I would note, General Mark Graham, he just left his post at 
Fort Carson after a very significant 2 years, was one of those 
leaders.
    Will you commit to helping in this effort, is the question 
I'd like to direct to you.
    Dr. Stanley. Yes, Senator, absolutely. I'm aware of the 
stigma associated with mental health issues, particularly 
anyone going to seek counseling for mental health, having 
served on Active Duty as well as even in my current experience. 
If confirmed, I certainly will look into that.
    Just for the record, Senator, my father and my brother 
served in the U.S. Army.
    Senator Udall. I'm glad I gave you that opportunity to 
clarify the record. That was my intent. [Laughter.]
    Let me move to ``Don't Ask, Don't Tell,'' if I might, a 
sensitive topic, but an important topic. As a commander, you 
saw and experienced ``Don't Ask, Don't Tell'' being 
implemented. I'm sure you're aware that gays and lesbians are 
already serving in our Armed Forces and thousands of gays and 
lesbians are civilian employees at DOD. Today you'll be looking 
at ``Don't Ask, Don't Tell'' as a soon to be very senior member 
of the President's DOD leadership team. We all heard the 
Commander in Chief say last month that he intends to end 
``Don't Ask, Don't Tell,'' and I thought the President sent a 
clear message to every servicemember in uniform, straight and 
gay, regardless of Service or rank, that this change was 
coming.
    Some in Congress believe the President is prepared to 
include repeal of ``Don't Ask, Don't Tell'' among his policy 
recommendations to Congress in the defense budget that he 
submits to us early next year. Is that a recommendation you're 
prepared to support?
    Dr. Stanley. Senator, I clearly recognize that this is a 
very sensitive issue, and it's an issue that I'm prepared to 
address if confirmed. I certainly will be taking input from all 
sources. This is DOD, it's outside of the government, it's 
Congress, the Senate--in general, a lot of input, the Service 
Chiefs in particular and our commanders, all the way down 
really from the deck plate down to the squad level.
    This is a very challenging subject, but one that I know we 
can get our arms around. I have to provide, based upon that 
input, a recommendation to Secretary Gates. Based upon whatever 
I get, which I don't know right now--and I enter this 
discussion or know what we're talking about with no 
preconceived notions. I fully expect that it will be a 
challenge, but I am up for that challenge, if confirmed.
    Senator Udall. Thank you for that forthright answer. I look 
forward to working with you further, when you're confirmed if I 
have anything to say about it. I would associate myself with 
the remarks of the chairman on ``Don't Ask, Don't Tell'' as 
well.
    Again, I want to thank the panel for your willingness to 
serve, for your wonderful and illustrious careers that you've 
had already, and I know our men and women in uniform will be 
well served by all three of you and the important work that 
you're about to undertake.
    Mr. Chairman, thank you and I yield back any time I have. 
Thanks.
    Senator Ben Nelson [presiding.] Thank you, Senator.
    First of all, thank you all for your willingness to serve 
in these new responsibilities.
    According to the list, I call upon myself to begin my 
questioning. Dr. Stanley, Secretary Gates announced earlier 
this year and Chairman Levin referred to it as well that the 
Department would scale back the role of outside contractors in 
support services. The goal as I understand it is to reduce the 
number of support service contractors from the current 39 
percent to 26 percent and replace them with full-time 
Government employees.
    I understand DOD's efforts to efficiently utilize its 
resources and I realize that an overreliance on contractors can 
lead to the erosion of the in-house capacity that's essential 
to effective government performance as well. But I want to be 
assured that this policy is grounded in a very thoughtful 
analysis that considers both base mission and local community 
implications as well.
    If DOD makes these conversions without a strategic plan in 
place, we have the potential to erode our industry base in key 
mission areas as well. From the information that's been 
provided to me by U.S. Strategic Command (STRATCOM) in 
Nebraska, it appears that STRATCOM's current conversion plan 
will reduce the contractor population to 227, or 22 percent of 
the total workforce, by 2015. My sense is that for too many 
years we were outsourcing too much, with too little emphasis on 
why and whether it was justified.
    But regardless of the makeup of the workforce of the 
Department, outsourcing or insourcing, it just has to make 
sense and be oriented towards the best utilization of 
resources, both money and people. So what review of these base 
level decisions like the decisions at Offutt and STRATCOM will 
DOD be undertaking to ensure that those decisions are both 
appropriate and consistent with the direction provided by the 
Secretary?
    Dr. Stanley. Yes, Senator. As I understand your question, 
we are looking at DOD reducing the number of contractors 
overall. I am not aware of all the details yet. I am aware that 
the Air Force has been working on some of this, but I sense 
that the contractor issue is much bigger than even that.
    If confirmed, I will certainly take this on as a 
responsibility within my Department to coordinate with all the 
Services to ensure that we have equitable as well as reasonable 
and responsible strategic planning in the details of that, and 
also work very closely with Congress and this committee to 
ensure that we move forward properly.
    Senator Ben Nelson. The consistency is extremely important, 
so that what we do accomplish is what the goal sets out for us, 
and that is the wise use of resources, both money and people, 
in the best possible manner. A strategic plan of some sort I 
think would be important to assure that process is both 
consistent and we get the best use of the resources. I'll be 
looking forward to further information on that as you develop 
your efforts.
    As part of that process of putting together a strategic 
plan, I hope that you would approach it on a business case 
analysis process. I think the best decisions are typically made 
when there is a strategic effort under way and you can give it 
a good business basis for the decision, as opposed to 
establishing a number and work backwards toward reaching that. 
That's why I was a little concerned when I saw that a number 
had been achieved rather than doing it on a case by case basis 
to establish what the number should be.
    Dr. Stanley also, as you have already been asked questions 
related to personnel and readiness, it's a broad portfolio. Can 
you identify what will be your top priorities, perhaps your top 
three priorities, in seeking that personnel and readiness role 
that is going to be so vital to the future of our military?
    Dr. Stanley. Yes, Senator. I would have to say that the 
All-Volunteer Force is number one and it's the umbrella. It's 
the piece that actually covers everything, because it's so all-
encompassing. As you already stated, the portfolio of the Under 
Secretary of Defense for Personnel and Readiness is a broad 
portfolio.
    But right under that, I'd have to look at our wounded 
warriors and the stress and all of the things that go along 
with that, because that's so significant as we now are at war 
on two fronts, which is very significant, and we have thousands 
of marines, sailors, airmen, and Army soldiers, who are 
actually committed and will be committed, depending on 
decisions that are going to be made.
    That's the wounded warriors, the stress, all the things 
that we don't know about. Then I'd have to say families. We 
cannot sustain the All-Volunteer Force if we don't have our 
families, not only on board, but taking care of our families, 
and we can't have our deployed people actually worried about 
what's happening with families back here. There's so much that 
has to be addressed there. Of course, there's schools, there's 
other exceptional issues that relate to families, employment 
opportunities for spouses, things like that, that are 
significant issues.
    I would say that starts out the three. I almost hesitate to 
stop there because there are significant issues in the All-
Volunteer Force.
    Senator Ben Nelson. Part of the taking care of families and 
our servicemembers probably includes the compensation 
arrangements that we're constantly trying to improve to be more 
competitive, to keep the All-Volunteer Force rather than to 
lose it due to competition from the outside.
    Dr. Stanley. Yes, Senator.
    Senator Ben Nelson. Do you have any particular thoughts 
about the compensation package at the moment, what you might be 
doing to look at improving it, modifying it? It's not always 
just about salary. It includes a number of other pieces as 
well.
    Dr. Stanley. Senator, if confirmed, it's certainly going to 
be an issue that I'll be looking at. That's why I was almost 
hesitating to stop at three.
    Senator Ben Nelson. I'll let you have four.
    Dr. Stanley. Yes, absolutely. There is a balancing now. 
We're now talking about not only the compensation, but also how 
much we can afford in an All-Volunteer Force, what in fact 
should we be paying out in terms of compensation, what 
shouldn't we be doing. There's always going to be a yin and a 
yang when it comes, because for every stimulus there's going to 
be some reaction.
    The bottom line is that the compensation piece is 
something, if confirmed, I'd have to look at very closely 
because I know that health care costs, as well as the personnel 
costs in general, are eating our organization, our DOD, and our 
Nation, and we have to address that. It's an issue we have to 
balance.
    Of course, this goes into equipment, all the other issues 
associated with that. There is not an endless stream of money 
and I am very much aware of that. So if confirmed, that will be 
part of that priority list.
    Senator Ben Nelson. Very good. Thank you.
    Ms. Conaton, during the Air Force posture hearing earlier 
this year the KC-X tanker was listed as one of the Air Force's 
top procurement priorities, and I expect that one of your 
biggest challenges will be, as already mentioned, awarding the 
contract to build this next generation of aerial refueling 
tankers.
    Once you get this vital contract awarded, do you have an 
estimated time line and strategic vision for how the National 
Guard units that have the KC-135s might be rolled into fielding 
the plan?
    Ms. Conaton. Senator, I do not at this point, not being 
confirmed, have a detailed sense of how the Guard will play 
with this. I guess I would say generally that the tanking, the 
aerial refueling capacity, is critical, not only to the Air 
Force, but truly to the totality of the Services, given the 
joint fight, and the Guard as part of the total force of the 
Air Force is critical. That would be one of the things I'd be 
very happy to look at more carefully if confirmed, is how the 
Guard will play in the replacement of current KC-135 aircraft.
    Senator Ben Nelson. With the new role of the Guard in the 
military today, obviously they'll play a very vital role in our 
readiness as it would relate to the new tankers. So having a 
plan in place to field it is going to be vital. I hope that 
will be a high priority in connection with the awarding of the 
contract and the detailing of everything that follows the 
awarding of the contract with the fielding of the plan.
    Ms. Conaton. Yes, Senator.
    Senator Ben Nelson. Thank you.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I am very interested in these high-level positions and 
found it necessary to be here to listen to the testimony of 
these very important appointments. Unfortunately, I didn't have 
the opportunity to be visited personally by any of you, so I 
really instructed my staff so I could be here to see who would 
be taking these high-level positions. I must say that the 
President has selected very well. I am looking forward to your 
responsibility in these important positions that you've been 
appointed and entrusted to.
    Just permit me to ask a couple simple questions. I want to 
ask Dr. Stanley in reference to ``Don't Ask, Don't Tell.'' If 
confirmed, Doctor, you will move in immediately and I would 
assume that there are some cases pending for dismissal. What is 
your position on that situation if you were to come in contact 
with them? I know you say you have to follow the law, but we 
also have the President saying that we intend to make some 
changes in that law, which was passed by this Congress.
    I'd just like to hear a little bit more on your position on 
that, please.
    Dr. Stanley. Senator, forgive me if I make sure, if I 
repeat the question back, but you're talking about pending 
cases, what would be my position on those pending cases?
    Senator Burris. That's correct.
    Dr. Stanley. If confirmed and there are pending cases 
there, they would fall under the existing statute as I would 
understand it. Not sure where, as I sit here right now, if 
confirmed, that I would be directly involved in what's going on 
in the Service purview right then. But that's about all I can 
say about that at this time because I'm tissue paper-thin on 
your question there.
    Senator Burris. It's a very sensitive issue, Dr. Stanley, 
and we're hoping that we can get something done in this 
Congress in reference to that that would free up your hands and 
we would not even be bothered with this issue, because we need 
all the volunteers who will commit to serve this country of 
ours to be able to serve and to serve in the capacity as 
honorable and as brave as their capacity will allow them to.
    But let me ask you this question. My colleague Senator 
Blanche Lincoln has put a bill into the Senate called the 
Selective Service Continuum of Care Act, which would provide 
advance physical and dental screening to our Reserve components 
prior to deployment. If you are confirmed, Doctor, how would 
you address the need for pre-deployment screening and care of 
our national Reserve component?
    Dr. Stanley. Senator, I'm not aware of the specific law or 
amendment or what's being put forward right now. This is the 
first I've heard of that. However, on the overall issue of our 
Reserve and our Guard and pre-deployment issues in general, I'm 
very much aware and believe that we should do more with that.
    I know it's an area that we'd be looking at. If confirmed, 
I certainly am committed to ensuring that our Guard and Reserve 
continue to ratchet up. I'm going back to my time when I was on 
Active Duty and I know that was an area we needed work on. As I 
was getting ready for this confirmation hearing, I know there's 
more work that needs to be done.
    Senator Burris. Good to have experience, right? You've been 
there, done that, right?
    Ms. Conaton, if confirmed, how would you plan to work with 
the new Director of Cost Assessment and Program Evaluation 
(CAPE), a position that has been created this past year to 
advise the Secretary of Defense on program cost efficiency?
    Ms. Conaton. Senator, as you rightly point out, that new 
position was created by this committee and this Congress as 
part of an effort to get weapons system acquisition reform 
jump-started in the Department. I think it's a very important 
step. I think the acquisition challenges that the Department 
faces are not unique to one Service. They're across the board. 
I think one of the critical things about the position that you 
mentioned, the Director of CAPE, is to get accurate and precise 
cost estimates at the beginning of a program so that we have 
greater confidence in the ability of the program to continue 
forward without significant cost overruns.
    But both costs and requirements are a critical issue to 
deal with at the beginning of a weapons system program. I would 
look forward to working with the director.
    Senator Burris. Also, what priority would you place on the 
U.S.'s advancement of unmanned drones and their use in 
surveillance missions? Do you believe that unmanned aircraft 
pilots should also be trained to fly manned aircraft as well?
    Ms. Conaton. Senator, we all are aware of how important 
unmanned systems have become, although it's been pointed out to 
me that there is still a person controlling that aircraft, so 
to say that it's unmanned is perhaps a little bit of a stretch.
    Senator Burris. Not in the cockpit.
    Ms. Conaton. Not in the cockpit, that's correct, sir.
    Senator Burris. In the drone cockpit, a cockpit in Las 
Vegas or somewhere.
    Ms. Conaton. Yes, sir.
    Senator Burris. Or Nevada, whatever.
    Ms. Conaton. I think they've been critical in the missions 
of intelligence, surveillance, and reconnaissance. As we all 
know, we have two wars going and the commanders in the theater 
have a tremendous demand for those types of capabilities. I 
think Unmanned Aerial Vehicle systems are things that we're 
going to be continuing to look at over the next couple of 
years.
    As to the role of what the pilot training should be for 
this, that would be an area that I would want to look at more 
closely if confirmed. I know that the Air Force is doing a lot 
of thinking about that. I know how important that issue is. I 
appreciate you putting it back on my radar screen and it's 
something I would look carefully at if confirmed.
    Senator Burris. Thank you.
    Mr. Romo, on the Selective Service, which all the 18-year-
old males must register. Do you have any idea how many or what 
type of a failure there is in registering of 18-year olds?
    Mr. Romo. Certainly. When I was a young officer, I was in 
Strategic Air Command at Offutt. ``Peace Is Our Profession'' 
was our motto. Why? Because we have deterrence. We have 
different levels of deterrence. That was obviously a nuclear 
deterrent when I was a missile launch officer. But we have a 
deterrent with the Selective Service System that's essential 
for our national security.
    Right now we have an All-Volunteer Force that works 
tremendously. I have the great fortune of working with a 
recruiting brigade of Recruiting Command and these soldiers do 
a tremendous job in getting some recruits for us, for our 
volunteer Army.
    But it's essential that we maintain an optimal amount of 
security and register these young men when they're 18 years 
old. There are over 6,000 young men that turn 18 years old 
every day in this country.
    Senator Burris. Say that again? I'm sorry, I didn't hear 
that.
    Mr. Romo. Over 6,000 young men have their 18th birthday 
every day in our country.
    It's up to us to register those young men by having an 
optimal marketing plan. We have a tremendous registration rate 
of 90 percent and we want to make sure that we raise that, at 
least minimally maintain that. But that's why we do it, so we 
can maintain a deterrent. We have two wars going on and if the 
President and Congress direct us to have a draft we are ready, 
and we want to show our foes that we are ready to have the 
draft to supplement the volunteer force if we have somebody 
that threatens us.
    Senator Burris. Mr. Romo, would you look at that marketing 
budget, because I'm pretty worldly in reading news, but I don't 
even recall hearing any type of advertising recently or in the 
last 5 or 6 years that young men turning 18 are required to 
register. I heard about it when the law came out, but I don't 
hear that regularly. I'm just wondering whether or not we're 
really doing enough promotion in regards to that.
    Mr. Romo. I had a great briefing by the public affairs of 
the Selective Service, and I will ensure that they will send to 
you the ways they currently market. With the wars going on, we 
have to be very creative. What I mean by that is creative for 
marketing, but creative in using the least amount of dollars 
for the marketing. They do air public service radio spots, for 
example, and they market through the State directors and the 
volunteer local boards that they do have all around the 
country. So there are many ways, but specifically I'll make 
sure that they send that to you.
    We do have a great relationship, by the way, with the 
Military Entrance Processing Command (MEPCOM) at Great Lakes, 
IL. We do have a data center and a regional center there.
    Senator Burris. I don't think you have a problem with 
those. The Navy recruits are coming to Great Lakes by the ton. 
I was up there the other day and God knows I really appreciate 
how those young people are coming forward. The Navy shapes them 
up and ships them out. I'll tell you, they'll be ship-shape 
when they leave there.
    Mr. Chairman, thank you very much. I want to commend our 
witnesses this morning. I'm very impressed and look forward to 
your being confirmed and carrying out your duties. God bless 
you and good luck.
    Senator Ben Nelson. Thank you, Senator.
    Senator LeMieux.
    Senator LeMieux. Mr. Chairman, thank you very much.
    First of all, I want to thank all of the folks that are 
here today who are up for confirmation for your service to the 
public. It strikes me that we don't thank people enough for the 
time that they spend working for the people, and you all have 
long and storied careers doing that. So thank you for 
dedicating yourself to public service.
    Dr. Stanley, I'd like to start with you if I may and ask 
you a few questions. We're all seeing these reports about the 
stress that our military is under, both fighting out in the 
field and here back in the States. I'm concerned, as I know you 
are, about the suicide rate that's rising. I want to read a few 
statistics and facts for you and then ask you a question.
    We learned recently that 99 soldiers killed themselves in 
2006, the highest rate of military suicide in the 26 years the 
military has been keeping statistics. In 2007 we had 115, in 
2008 133, and as of this Monday, we have 140 Active Duty Army 
soldiers that have committed suicide. The suicide rate for the 
Army for 2008 was calculated at roughly 20.2 per 100,000 
soldiers, which is the first time since the Vietnam war that 
it's higher than the adjusted civilian rate.
    In your position to be in charge of personnel and 
readiness, these have to be big issues, to make sure that, one, 
the people that are enlisting into the military are not only 
physically but mentally ready, and that once they enlist and 
become members of our armed services, that they continue to 
have the support they need, and the training they need, and the 
counseling they need to endure the very difficult duty of 
fighting a war.
    I would like for you, if you would, sir, to speak to those 
issues and what plans you have to make sure that our troops are 
ready on the front end and continue to be mentally strong 
throughout their time in the armed services.
    Dr. Stanley. Yes, Senator. I guess the first thing to say 
is that in the priorities I laid out that was actually at the 
very top. It's among my top three. The All-Volunteer Force in 
itself, when we look at the quality of people who are coming 
in, but also focusing on our wounded warriors and those 
injured, the stress associated with combat and those who are 
pending combat, has been very significant. I'm aware of it.
    Suicide is not new, but it's going off the page here. It's 
been something that I've been personally familiar with from my 
time on Active Duty. Even one suicide is too many. So with 
that, you have the commitment, if confirmed, this will be an 
area that will be a priority. It's not only in terms of what's 
working right now, but also looking at better ways to do what 
we're doing, because we have to work with the Services, work 
with the Service Chiefs, and then have the kind of environment, 
because of the cultures of our different Services, to be able 
to work together, because what they don't need right now is for 
me to come down and say, this is what you're going to do.
    I think it's important that we have to work together. I'm 
looking forward to that opportunity if confirmed, because I 
think leadership more than anything right now and working as a 
team at DOD is absolutely critical at this time, and our 
civilian support, too, and Congress.
    Senator LeMieux. Thank you, Doctor.
    Let me ask you another question, if I can, on a different 
topic. I know that you have personal experience with this and I 
wanted you to speak to your views about military personnel who 
have disabled spouses or children. I view, and I know that many 
do, that public service is not just done by the person who's 
involved in the public service, whether it's the military or 
it's here working in Congress. It's done by our families.
    We have to take care of the whole family unit. I know this 
is something that touches your heart and I would be interested 
in what goals you have with respect to these exceptional family 
members who have these challenges and what we can do to support 
them as well.
    Dr. Stanley. Yes, Senator. I'm smiling because if I flub 
this one my wife's going to take care of me.
    Senator LeMieux. We don't want that to happen.
    Dr. Stanley. No, sir.
    I will tell you that at no point in my career--and we've 
been married 38 years--have my decisions been alone, even as a 
commander, a commanding general--I've had somebody right there 
with me. We talked about my decision to retire. We talked about 
my decision to move to different duty stations. It wasn't that 
I was going to even think about refusing the Commandant's 
orders. The fact is that I literally had a family. I still have 
a family and that's very important.
    I bring that to the table of experience not to say that 
it's omnipotent or all-knowing, but it's a very sensitive area. 
Then when you start talking about exceptional family issues, 
from autism to any range of different issues, I'm very 
sensitive to that also. Again I go back to an earlier question 
here, working with our separate Service cultures, working in 
areas where duty stations, we have great people in our 
military, but there are a lot of things they don't know or 
understand about the sensitivities dealing with the only 
special school for this particular ailment. The architectural 
barriers that you would face in one duty station as opposed to 
another. Employment of the spouse, that you can work in certain 
duty stations--this is now with disabilities--but you can't 
work over here. Going overseas, fine, but if you go to certain 
duty stations the architectural issues are going to be a 
challenge, as well as the schooling and things like that.
    Now, does that say that I know everything? No, Senator. But 
what it does tell me, I'm awfully sensitive to how complex 
these issues are and how much I'll be ready to do it. Quite 
frankly, even if I'm confirmed in this position, I'm not going 
to be doing it without having the spousal support. I have to 
stop there, Senator.
    Senator LeMieux. I appreciate that answer. Thank you. I 
know you're going to do a great job.
    If I may ask, Mr. Chairman, I have one question of Ms. 
Conaton. The military is extremely important to my home State 
of Florida, and certainly the Air Force is extremely important 
to Florida. We are very pleased with these JSFs going to Eglin 
and to the training of them and having training there. I want 
to know if you have any thoughts on what the role will be. I 
think there are 59 planned at Eglin and we're going to maybe 
potentially have more. I don't know if you're up to speed on 
that yet, but we think that we're well suited at Eglin to train 
for these JSFs, and I want to get your comments and thoughts on 
that.
    Ms. Conaton. Thank you, Senator. I am not yet fully 
briefed, not yet being over with the Air Force, on the basing 
plans. I know how important the training mission is and I 
recognize the significant contribution that Eglin has made in 
that regard. If I'm confirmed, I'll be very happy to work with 
you to understand your concerns more and to see what is 
actually being planned inside the Air Force.
    Senator LeMieux. Maybe we'll have a chance to go there 
together and work on that issue.
    Ms. Conaton. I'd welcome that. Thank you.
    Senator LeMieux. Mr. Chairman, that's all the questions I 
have.
    Senator Ben Nelson. Thank you, Senator.
    I have no further questions, but let me say to all of you 
and to your families and friends, thank you for your service, 
your commitment, and we look forward to a rather speedy 
confirmation. Thank you all.
    We are adjourned.
    [Whereupon, at 10:43 a.m., the committee adjourned.]

    [Prepared questions submitted to Dr. Clifford L. Stanley by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. During my 33 years of serving in the Marine Corps, I 
experienced first hand the sacrifices that our Armed Forces make and 
the daunting challenges the Department of Defense (DOD) faces now and 
in the future. I served in a diversified number of positions including 
the Commander of the Marine Corps Combat Development Command, the 
Assistant Deputy Chief of Staff for Manpower and Reserve affairs at 
Marine Corps Headquarters. After my wife's paralysis in 1975, she and I 
personally lived the trials disabled servicemembers and their families 
encounter today. After retiring from the Marine Corps, I served as the 
President of Scholarship America where I implemented sweeping reforms 
that moved this organization forward while overcoming latent 
bureaucracy and financial challenges. These experiences along with a 
lifetime devotion to inspiring others towards leadership, education and 
diversity, have given me a strong appreciation of the formidable tasks 
ahead.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense for Personnel and Readiness?
    Answer. I believe the most important challenge is continuing to 
properly sustain the Nation's all volunteer force, particularly during 
this time of conflict. This includes ensuring appropriate compensation 
and personnel policies that recognize the talent and sacrifices of our 
servicemembers. Ensuring quality health care and, particularly, mental 
health support will be paramount. DOD must deliver world-class support 
to families and to wounded, ill, and injured servicemembers. At the 
same time, I understand that our current engagements have illuminated 
the need to change the way the Department conducts operations. As the 
Quadrennial Defense Review charts a course for the Department of the 
future, the Under Secretary for Personnel and Readiness will need to 
make sure that the human resource systems for civilian and military 
personnel, Active and Reserve, produce servicemembers and employees who 
are trained and equipped with skills to realize that future.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. Although I do not have specific recommendations at this 
time, if confirmed, I would review the plans that are currently in 
place to address these challenges, and determine whether they need to 
be modified or amplified. I would intend to collaborate with my 
colleagues in the Office of the Secretary of Defense, the Military 
Services, and the Joint Staff in charting the right course for the 
Department.
                                 duties
    Question. Section 136 of title 10, U.S.C., provides that the Under 
Secretary of Defense for Personnel and Readiness, subject to the 
authority, direction and control of the Secretary of Defense, shall 
perform such duties and exercise such powers as the Secretary of 
Defense may prescribe in the areas of military readiness, total force 
management, military and civilian personnel requirements, military and 
civilian personnel training, military and civilian family matters, 
exchange, commissary and nonappropriated fund activities, personnel 
requirements for weapons support, National Guard and Reserve 
components, and health affairs.
    Assuming you are confirmed, what duties do you expect the Secretary 
of Defense will prescribe for you?
    Answer. If confirmed, I expect the Secretary of Defense would 
assign me all of the duties, functions, and responsibilities currently 
mandated by law and specified in the Department's directives for the 
position of Under Secretary of Defense for Personnel and Readiness.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of Defense,
    Answer. If confirmed, I would serve the Secretary as his principal 
advisor and advocate for the management of human resources in the 
Department.
    Question. The Deputy Secretary of Defense,
    Answer. If confirmed, I would serve the Deputy Secretary as his 
principal advisor and advocate for the management of human resources in 
the Department.
    Question. The Chairman and the other members of the Joint Chiefs of 
Staff,
    Answer. If confirmed, I would coordinate with the Chairman of the 
Joint Chiefs of Staff to ensure that he has all the information and 
support necessary to perform the duties of principal military advisor 
to the President, National Security Council, and Secretary of Defense.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness (PDUSD(P&R)).
    Answer. If I am confirmed, PDUSD(P&R) would be my principal staff 
assistant and advisor in all matters relating to the management and 
well-being of the military and civilian personnel in the DOD Total 
Force structure.
    Question. The Assistant Secretary of Defense for Health Affairs 
(ASD(HA)).
    Answer. If I am confirmed, ASD(HA) would be my principal advisor 
for all DOD health policies, programs, and force health protection 
activities.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
(ASD(RA)).
    Answer. If I am confirmed, ASD(RA) would be my principal advisor 
for all Reserve component matters in DOD.
    Question. The DOD General Counsel,
    Answer. If confirmed, I would anticipate regular communication, 
coordination of actions, and exchange of views with the General Counsel 
and the attorneys assigned to focus on personnel and readiness policy 
matters. I would expect to seek and follow the advice of the General 
Counsel on legal, policy, and procedural matters pertaining to the 
policies promulgated from the USD(P&R).
    Question. The DOD Inspector General,
    Answer. The DOD Inspector General is in charge of promoting 
integrity, accountability, and improvement of DOD personnel, programs, 
and operations to support the Department's mission and serve the public 
interest. If confirmed, I would fully assist in any investigations or 
issues that relate to personnel and readiness.
    Question. The Chief of the National Guard Bureau,
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense. If 
confirmed, I would work through ASD(RA) to ensure effective integration 
of National Guard capabilities into a cohesive Total Force.
    Question. The Service Secretaries,
    Answer. If confirmed, I would work closely with the Secretaries of 
the Military Departments on all matters relating to the management and 
well-being of military and civilian personnel in the DOD Total Force 
structure.
    Question. The Assistant Secretaries for Manpower and Reserve 
Affairs of the Army, Navy, and Air Force,
    Answer. If confirmed, I would work with these officials as partners 
in carrying out the human resource obligations of the Services.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs.
    Answer. If confirmed, I would work closely with these officers to 
ensure that DOD attracts, motivates, and retains the quality people it 
needs.
    Question. The combatant commanders.
    Answer. If confirmed, I would foster mutually respectful working 
relationships that translate into providing the Total Force 
capabilities needed to complete combat missions.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1)?
    Answer. If confirmed, I would seek a close coordinating 
relationship and open channels of communication with the Joint Staff 
regarding personnel and readiness policy issues.
                systems and support for wounded warriors
    Question. Servicemembers who are wounded and injured performing 
duties in Operations Enduring Freedom and Iraqi Freedom deserve the 
highest priority from their Service for support services, healing and 
recuperation, rehabilitation, evaluation for return to duty, successful 
transition from Active Duty, if required, and continuing support beyond 
retirement or discharge. Yet, as the revelations at Fort Stewart in 
2003 and Walter Reed in 2007 revealed, the Services were not prepared 
to meet the needs of returning wounded servicemembers.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. Although I cannot make a complete assessment at this time, 
it is my opinion the DOD is improving in these areas, but I believe 
there is still much to be done. If confirmed, I would work to further 
the progress for our wounded warriors and their families. I would 
ensure that the Office of Wounded Warrior Care and Transition Policy 
continues to ensure wounded, ill, injured, and transitioning warriors 
receive quality care and seamless transition support. I would also work 
to ensure DOD continues collaborative efforts with the Department of 
Veterans Affairs on compensation and benefits, transition assistance, 
and care coordination.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. The greatest strength is the Department's commitment to 
take care of its wounded warriors and their families.
    Question. What are the weaknesses that need to be corrected?
    Answer. The challenges lie in being continually vigilant to ensure 
recovering servicemembers and families receive the full care that they 
need and deserve.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. I do not have any specific recommendations at this time. If 
confirmed, I would make providing needed care and support for 
servicemembers, veterans, and their families one of my top priorities.
    Question. Studies conducted as a result of the revelations at 
Walter Reed point to the need to reform the disability evaluation 
system.
    What is your assessment of the need to streamline and improve the 
disability evaluation system?
    Answer. I do not have enough information to make a complete 
assessment at this time but if confirmed, I would work to create 
improvements in the system.
    Question. If confirmed, how will you address any need for change?
    Answer. If confirmed, I would work closely with the Department of 
Veterans Affairs toward reform of the disability evaluation system. I 
fully support the Department's efforts towards providing a 
comprehensive, fair, and timely medical and administrative processing 
system to evaluate injured or ill servicemembers' fitness for continued 
service.
                        disability severance pay
    Question. Section 1646 of the Wounded Warrior Act, included in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008, 
enhanced severance pay and removed a requirement that severance pay be 
deducted from VA disability compensation for servicemembers discharged 
for disabilities rated less than 30 percent incurred in the line-of-
duty in a combat zone or incurred during the performance of duty in 
combat-related operation as designated by the Secretary of Defense. In 
adopting this provision, Congress relied on the existing definition of 
a combat-related disability contained in title 10, U.S.C. 1413a(e). 
Rather than using the definition intended by Congress, DOD adopted a 
more limited definition of combat-related operations, requiring that 
the disability be incurred during participation in armed conflict.
    If confirmed, will you reconsider the Department's definition of 
combat-related operations for purposes of awarding enhanced severance 
pay and deduction of severance pay from VA disability compensation?
    Answer. It is my understanding that an evaluation is being 
conducted on the DOD's definition. If confirmed, I would ensure that 
process includes in its review the intentions of the legislation.
                       homosexual conduct policy
    Question. The current Homosexual Conduct Policy, commonly referred 
to as ``Don't Ask, Don't Tell,'' went into effect in February 1994 
after months of congressional hearings and debate resulting in the 
enactment of a Federal statute. Although there have been some changes 
in how this policy has been implemented, the basic policy has not 
changed. President Obama has made it clear that he intends to work with 
the military and with Congress to repeal the policy.
    What is your view on repealing or changing this policy?
    Answer. If confirmed, I would work closely with the Service 
Secretaries and Chiefs to provide the Secretary of Defense the best 
advice possible on the way forward regarding this issue.
    Question. In your view, would changing this policy have an adverse 
impact on unit cohesion and good order and discipline in the military?
    Answer. If Congress revises the Homosexual Conduct Policy statute 
and if confirmed, I would work closely with the Services to ensure the 
revising of this policy is done in a way that maintains our highest 
state of military readiness.
    Question. If confirmed, what role would you play in efforts to 
repeal or change this policy?
    Answer. If Congress changes the law and if confirmed, I, as the 
Under Secretary for Personnel and Readiness, would be responsible for 
leading the implementation of the change in the policy within DOD.
    Question. If the policy is changed by Congress, would you recommend 
a phase-in period for implementation of the new policy?
    Answer. If the statute is changed and if confirmed, I would consult 
with the Service Secretaries and Chiefs to ensure the implementation of 
the new policy is done in a way that maintains our highest state of 
military readiness.
    Question. If confirmed, what role will you play in implementing a 
new policy?
    Answer. If the statute is changed and if confirmed, I would lead 
the effort to implement a new policy while carefully considering the 
advice of and working closely with the Service Secretaries, the Service 
Chiefs, and the Chairman of the Joint Chiefs of Staff. I would ensure 
that this change is done in a way that maintains our highest state of 
military readiness.
                        muslims in the military
    Question. Last week's fatal attack against soldiers and civilian 
employees at Fort Hood was allegedly carried out by a Muslim Army 
officer. There is a risk that heightened sensitivities arising out of 
this attack could lead to harassment or prejudice against Muslims in 
the military. Correspondingly, there have been fears expressed about 
the susceptibility of Muslims in uniform to arguments that current 
combat operations are, in effect, a war against Islam.
    What is your assessment of the role that Muslims play today in our 
Armed Forces?
    Answer. I believe that men and women of our Armed Forces volunteer 
to defend our Constitution and the freedoms that document afford us. 
Each servicemember, regardless of their faith affiliation, or the lack 
thereof, is pivotal to the success of our national security efforts.
    Question. If confirmed, what steps, if any, would you take to 
address the potential for harassment against Muslims in the military 
and to improve the ability of the Services to identify and respond to 
any member who displays violent tendencies based on beliefs?
    Answer. In order to safeguard the rights of servicemembers, there 
must be both formal and informal feedback procedures that quickly 
identify and assess any harassment, should it occur. Responses to 
grievances, or any identified shortcomings in command climate 
assessments, must be quick, thoughtful, and effective. If confirmed, I 
would review the viability of these feedback systems, and take measures 
to correct them as appropriate.
                       diversity in the military
    Question. How do you define diversity in the Armed Forces?
    Answer. In a broad context, I believe diversity is the combination 
of attributes from all walks of American life. Some key aspects of 
diversity are race, ethnicity, and gender which are the attributes most 
associated when we talk about ``looking like America.''
    Question. Do you believe that achieving greater diversity is a 
priority for DOD?
    Answer. Yes.
    Question. Please describe examples in which improved diversity has 
led to greater organizational effectiveness in your experience.
    Answer. I believe that every organization improves with more 
diversity. Diverse perspectives and views make organizational decisions 
more inclusive, effective, and successful.
    Question. If confirmed, what steps would you take to ensure that 
continued progress toward diversity goals is achieved without violating 
reverse discrimination principles of law?
    Answer. If confirmed, I would seek to understand the efforts of DOD 
to effectively promote diversity. I think that diversity is a 
leadership issue, so as part of my initial engagement, I would consult 
with the Department's senior leaders while monitoring progress toward 
achieving the Department's goals.
                 sexual assault prevention and response
    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
Iraq and Afghanistan are still being reported. Victims and their 
advocates claim that they are victimized twice: first by attackers in 
their own ranks and then by unresponsive or inadequate treatment for 
the victim. They assert that their command fails to respond 
appropriately with basic medical services and with an adequate 
investigation of their charges followed by a failure to hold assailants 
accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. It is my understanding that the Department has put 
considerable effort into the development of policies and programs 
designed to address sexual assault. If confirmed, I would review those 
policies to ensure they provide the appropriate care to victims and 
hold offenders accountable.
    Question. What problems, if any, are you aware of in the manner in 
which this new confidential reporting procedure has been put into 
operation?
    Answer. I have not been informed of any specific problems in the 
implementation of the confidential reporting option, called restricted 
reporting. I am aware that the restriction of no investigation when a 
victim chooses restricted reporting has concerned commanders 
responsible for the actions of their unit members. I believe that the 
Department must find a balance between victim care and offender 
accountability but the most important is to have victims come forward 
and get the support they need following an assault.
    Question. What is your view of the steps the Services have taken to 
prevent sexual assaults in combat zones?
    Answer. I do not have enough information to make an assessment at 
this time, but I am aware the Department has focused on educating 
servicemembers deploying to combat zones about how to prevent sexual 
assault and what to do should it occur. If confirmed, I would 
vigorously continue efforts to eliminate sexual assaults.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. I cannot make an assessment at this time, but if confirmed, 
evaluating the adequacy of training and resources allocated to sexual 
assault investigation and response would be a top priority.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. Sexual assault reaches across the Department, and as such, 
outreach and accountability efforts need to have the same reach. If 
confirmed, I would ensure that the Department has the right structure 
in place to engage the Departmental leadership, and the leadership of 
other agencies such as the Departments of Veterans Affairs, Health and 
Human Services, and Justice, in planning, guiding, and evaluating our 
efforts.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the military?
    Answer. The Department does not endorse the establishment of 
religion, but it does guarantee its free exercise. The Department and 
the Military Services ensure servicemembers may observe the tenets of 
their respective religions, including the right to hold no specific 
religious conviction or affiliation.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular articles 
of faith?
    Answer. My understanding is that wearing particular articles of 
faith are permissible so long as the articles are neat and 
conservative, do not negatively impact the readiness, good order or 
discipline of the unit and the mission is not jeopardized. If 
confirmed, I would continue to evaluate this issue.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. Yes.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. My experience, and my belief, is that the military 
chaplaincy has done an admirable job in ministering amidst the 
pluralistic environment of the military. Even as chaplains express 
their faith, they and their commanders also are asked to be as 
inclusive as possible when ministering to an interfaith group. I 
believe that as a group, military chaplains work to balance these 
responsibilities well.
                           service academies
    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the Service Academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. I believe the Department's sexual assault and sexual 
harassment policies provide a foundation for combating sexual 
misconduct at the Service Academies. There must be policies and 
procedures that encourage victims to come forward and that hold 
offenders accountable, as well as effective training programs. It is my 
understanding that the academies have institutionalized prevention and 
response programs. I further understand that the Department reviews the 
efforts of the Academies annually. If confirmed, I would continue that 
oversight and determine whether additional measures need to be taken.
    Question. What is your assessment of corrective measures taken at 
the U.S. Air Force Academy to ensure religious tolerance and respect, 
and of Air Force guidelines regarding religious tolerance that were 
promulgated in August 2005?
    Answer. I do not have enough information to make an assessment at 
this time. I believe it is imperative that leaders, at all levels, must 
continue to ensure that every member of DOD respects the spirit and 
intent of laws and policies surrounding the free exercise of religion.
                            women in combat
    Question. The expanding role of women and the implementation of 
women-in-combat policies in the Armed Forces is a matter of continuing 
interest to Congress and the American public.
    Does DOD have sufficient flexibility under current law relating to 
women in combat to make changes to assignment policy for women when 
needed?
    Answer. In my opinion, yes.
    Question. Do you believe any changes in the current policy for 
women in combat are needed?
    Answer. I am not aware of any changes necessary at this time. It is 
my understanding that Department policy and practices are reviewed on a 
recurring basis to ensure compliance and effective use of manpower. If 
confirmed, I would continue that process.
                      rising costs of medical care
    Question. In testimony presented to Congress in February, 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April, 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive.''
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. I am informed that Governmental estimates indicate these 
costs could rise to nearly 12 percent of the DOD budget in just a few 
years. If confirmed, I would research means to ensure that DOD provides 
quality care, and it does so in a way that provides the best value for 
our servicemembers and their families.
    Question. If confirmed, what actions would you initiate or 
recommend to the Secretary to mitigate the effect of such costs on the 
DOD top-line?
    Answer. I cannot make specific recommendations at this time. If 
confirmed, I would work closely with our healthcare leadership in DOD 
to examine every opportunity to assure military beneficiaries are 
provided the highest quality care possible while managing cost growth 
and to provide that advice to the Secretary of Defense.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. I believe that to control the costs of military health care 
we need to research all possibilities. If confirmed, I would examine 
the costs of our direct care facilities, seeing where efficiencies can 
be gained and investing wisely in infrastructure requirements. In the 
long term, the promotion of healthy life styles and prevention among 
our beneficiaries will also help reduce the demand for health services.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continues to rise and is becoming an ever 
increasing portion of the DOD budget.
    What actions do you believe can be taken to control the rise in 
personnel costs and entitlement spending?
    Answer. I am aware that an increasing proportion of the 
Department's finite resources are devoted to personnel related costs. 
At the same time, I believe we cannot fail to adequately provide for 
and support our all volunteer force and their families. This includes 
maintaining a sufficient rotation base for both our Active and Reserve 
personnel. If confirmed, I know achieving a ``right sized'' mix of 
Active Duty, Reserve, civilians, and contractors is imperative. An 
important part of this challenge will be striking the right balance 
between personnel, recapitalization, and operational and support costs, 
while ensuring that related entitlements are appropriate and well-
reasoned.
    Question. If confirmed, what actions will you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. If confirmed, I would work closely with the Services and 
the DOD Comptroller to monitor personnel costs and program execution 
throughout each year. End-strength, recruiting, and personnel movement/
PCS are examples of areas where proactive management can ensure that 
these programs are realistically funded and minimize the scope of any 
end-of-year reprogramming.
    Question. What is your assessment of the cost effectiveness of the 
Services' use of bonuses to encourage recruiting and retention?
    Answer. It is my impression that recruiting and retention bonuses 
are cost-effective tools available to the Services in achieving 
strength and experience objectives. They provide an effective and 
easily targetable incentive without the long-term costs associated with 
entitlements or across-the-board incentives but they must be 
continually examined to ensure proper implementation and efficacy.
                          mental health issues
    Question. The final report of the DOD Task Force on Mental Health, 
issued in June 2007, found evidence that the stigma associated with 
mental illness represents a ``critical failure'' in the military, 
preventing individuals from seeking needed care. The report states, 
``Every military leader bears responsibility for addressing stigma; 
leaders who fail to do so reduce the effectiveness of the 
servicemembers they lead.'' In light of increasing suicide rates in the 
Services and the increase in the number of servicemembers diagnosed 
with post-traumatic stress, it is more important than ever to ensure 
that servicemembers and their families have access to mental health 
care and that the stigma associated with seeking such care is 
eliminated.
    In your view, what actions are necessary to alleviate this stigma?
    Answer. I believe that reducing our servicemembers' reluctance to 
seek psychological help is at a critical juncture. If confirmed, I 
would work to ensure that anti-stigma efforts target command and the 
servicemembers. Educating leaders on the critical nature of mental 
health in individual readiness reinforces the importance of seeking 
assistance for mental health problems.
    Question. What is your view of the need for revision of military 
policies on command notification when servicemembers seek mental health 
care?
    Answer. I am informed that recent updates provide more explicit 
guidance to better balance patient confidentiality rights and the 
commander's right to know for operational and risk management 
decisions. This is a very sensitive area and if confirmed, I would 
favor efforts to continuously refine policies to strike the right 
balance between an individual's health care privacy and the commanders' 
responsibilities to their fellow servicemembers and to the mission.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. I am generally aware of the Department's recent efforts to 
determine workforce requirements necessary to meet the mental health 
needs of our servicemembers and their families. Achieving the military 
and civilian workforce goals and fully utilizing all the medical, 
educational, and counseling resources at the Department's disposal will 
help meet these critical needs.
                       officer management issues
    Question. If confirmed as the Under Secretary of Defense for 
Personnel and Readiness, you would have significant responsibilities 
with regard to officer management policies, the promotion system, and 
recommending officers for nomination to positions of authority and 
responsibility.
    Do you believe the current DOD procedures and practices for 
reviewing the records of officers pending nomination by the President 
are sufficient to ensure the Secretary of Defense and the President can 
make informed decisions?
    Answer. Yes.
    Question. Are these procedures and practices fair and reasonable 
for the officers involved?
    Answer. Yes.
    Question. If confirmed, what changes, if any, would you make to the 
officer management system?
    Answer. I have no specific recommendations at this time. If 
confirmed, I would make an assessment of the officer management system 
a priority.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination for promotion.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general and flag officer nominations?
    Answer. If confirmed, I would ensure all procedures and practices 
regarding general and flag officer nominations allow the leadership to 
thoroughly vet all officer records and enable the Department to 
nominate the best qualified officers for consideration by the 
President.
    Question. What is your understanding of the ability of the Services 
to timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. I genuinely and fully appreciate the importance of fully 
considering credible adverse information during the evaluation of 
military candidates for advancement. If appointed, I would make certain 
that these procedures are viable and strong, and that the Secretary of 
Defense and the President have all the information on nominations 
required to make a fully informed decision.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
and flag officer rank?
    Answer. If confirmed, I would ensure the most careful review of all 
general and flag officer nominations at the highest levels of the 
military and civilian leadership of the Department. Nominations 
including adverse or alleged adverse information should be intensely 
scrutinized.
            technical training of general and flag officers
    Question. Do you believe that the appropriate numbers of general 
officers in the Military Services have advanced training and degrees in 
scientific, acquisition, and technical disciplines, and that career 
paths for officers with technical skills are appropriate, so as to 
ensure that the Department can better execute complex acquisition 
programs, adapt to a rapidly changing technological threat environment, 
and make informed investment decisions of DOD resources?
    Answer. Although I cannot make a detailed assessment, I believe the 
Department must sustain officer development programs that are 
responsive to ever-changing and emerging needs. This imperative is 
particularly acute in the technical, scientific, and acquisition 
arenas. If confirmed, I would work with the Department's senior leaders 
to create a responsive personnel and training program.
    Question. If not, what will you do to address this deficiency?
    Answer. Identifying appropriate skills and education to maintain 
currency in the technological threat environment is a continuous 
process. If confirmed, I would aggressively seek to ensure that human 
resource policies and practices are fully adaptable to the needs of the 
Nation in this dynamic, and often complex, environment.
                       readiness responsibilities
    Question. Section 136 of title 10, U.S.C., gives the Under 
Secretary of Defense for Personnel and Readiness certain 
responsibilities for military readiness. Some important issues that 
affect military readiness, however, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics. Furthermore, the 
secretaries of the Military Services have the title 10 responsibilities 
for most readiness issues including training, equipping, and 
maintaining the military forces.
    If confirmed, where would the readiness responsibilities of these 
other officials end, and where would your readiness responsibilities 
begin?
    Answer. I view the responsibilities of the Under Secretary for 
Personnel and Readiness as to advise the Secretary on all matters of 
readiness. These include oversight of military training, personnel and 
medical readiness, and the analysis of broad mission assessments from 
the combatant commanders to the readiness of key units in support of 
the Secretary's deployment decisions. As for readiness responsibilities 
across the Department, if confirmed, I would work collaboratively with 
OSD, Joint Staff, and Service colleagues to ensure our forces are ready 
to execute the National Military Strategy.
    Question. What specific readiness issues would you and your 
subordinates be assigned?
    Answer. That would depend on the type of readiness issues. If 
confirmed, I would direct the readiness staff to focus on the 
identification of readiness and training issues. For those identified, 
the action would be taken up by the appropriate lead within the 
Department. For example, personnel retention issues would be addressed 
by the military personnel policy and our Military Service partners. 
Other issues, such as H1N1 response, would be led by the ASD for Health 
Affairs, leaders at NORTHCOM and in the interagency.
    Question. Would you recommend any changes to the current 
organization to more effectively align some of these responsibilities?
    Answer. Not at this time.
    Question. In 1999, Congress required the Department to develop and 
implement a new readiness reporting system, uniformly applied, which 
would provide decision makers with more accurate and reliable 
assessments and data regarding the actual capabilities and readiness of 
U.S. forces. In June 2002, DOD issued a directive establishing the 
Defense Readiness Reporting System (DRRS) and requiring that all 
military departments align their readiness reporting processes with 
DRRS. Since then, DOD and the Services have taken a number of 
developmental steps, but DRRS is not yet fully operational and aligned 
with the Services' reporting processes. According to a Government 
Accountability Office study released in September 2009, entitled ``DOD 
needs to strengthen management and oversight of the DRRS'' (GAO-09-
518), the Department has yet to successfully plan, organize, resource, 
and execute relevant or necessary interoperability, user, and other 
tests to validate DRRS for deployment as the Department's readiness 
reporting system replacement.
    In your view, what is the importance to the mission and activities 
of the Department of an accurate, reliable, and timely system for the 
measurement and reporting of the readiness of military forces?
    Answer. I believe the Department needs accurate and timely 
readiness assessments of military forces. These are the gauge by which 
we measure the ability to execute the missions assigned by the 
President and Secretary of Defense. Accurate assessments allow the 
Department to effectively plan and manage its forces, and signal where 
capability shortfalls exist or assets are needed.
    Question. What is your understanding and assessment of the 
Department's current readiness reporting systems, the DRRS program, and 
the progress made to date developing and deploying DRRS? If confirmed, 
what actions, if any, would you direct to improve the development and 
deployment of DRRS?
    Answer. I do not have detailed knowledge on the current situation, 
but it is my understanding the DRRS effort is focused toward 
establishing accurate mission assessments from our combatant commanders 
and the Military Services. If confirmed, I would personally review DRRS 
implementation to ensure we are meeting the needs of the senior 
leadership and a unity of effort across the Department to drive this 
important effort to a fully operational capability.
                        active-duty end strength
    Question. In the recently enacted NDAA for Fiscal Year 2010, 
Congress authorized higher Active-Duty end strengths for all the 
Services.
    In your view, what is the appropriate Active-Duty end strength for 
each of the Services?
    Answer. I cannot make an informed assessment at this time. I 
believe strongly that our forces, both Active and Reserve, must be 
large enough to not only satisfy deployed demands, but also have a 
rotation base that recognizes the personal needs of our volunteers and 
their families. If confirmed, I would devote considerable attention to 
this important issue.
    Question. What challenges will the Services face in maintaining 
these higher end strengths?
    Answer. Foremost, the challenge of monitoring and responding to 
retention and recruiting trends, especially as the economy improves. 
Recruiting challenges could include education level, aptitude, weight, 
and medical issues that render a number of potential recruits 
ineligible.
               medical personnel recruiting and retention
    Question. DOD continues to face significant shortages in critically 
needed military medical personnel in both the Active and Reserve 
components. The committee is concerned that growing medical support 
requirements will compound the already serious challenges faced in 
recruitment and retention of military medical, dental, nurse, and 
behavioral health personnel.
    If confirmed, will you undertake a comprehensive review of the 
medical support requirements for DOD and the sufficiency of the plans 
to meet recruiting and retention goals in these specialties?
    Answer. Yes.
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Military Services can continue to meet medical support 
requirements?
    Answer. Although I do not have any specific recommendations at this 
time, I believe there may be a need for more flexible recruiting and 
retention strategies such as the recently granted authority to use 
bonuses and special pays as needed to recruit, hire, and retain medical 
specialties.
                               dwell time
    Question. For many military members, dwell time goals are not being 
met, and recent testimony suggests that dwell time will not improve 
appreciably over the next 12-18 months.
    In your view, what can be done to increase dwell time for both 
Active and Reserve component members, and when will these improvements 
be seen?
    Answer. From my perspective the largest impact to dwell time will 
come from the balance of the drawdown in Iraq and the President's 
upcoming decision on the force plans for Afghanistan. Increases in end 
strength for the Army, the Marine Corps, and Special Operations Forces 
over the past several years should translate into dwell times 
increasing.
    Question. In your view, would additional Army end strength in 2011 
or 2012 improve dwell time ratios and reduce stress on the force, and 
if so, what numbers of Active and Reserve component members would be 
necessary?
    Answer. I do not have enough information to make an assessment at 
this time. I would defer to the analysis of the Quadrennial Defense 
Review as to whether current end strength increases are sufficient in 
light of anticipated strategy and projected needs.
                    operational and personnel tempo
    Question. Section 136 of title 10, U.S.C., states that the Under 
Secretary of Defense for Personnel and Readiness, subject to the 
authority, direction, and control of the Secretary of Defense, is 
responsible for the monitoring of operations and personnel tempo of the 
Armed Forces, and to establish uniform standards, where practicable, 
for the deployment of personnel.
    In your view, how will shifting resources from Iraq to Afghanistan 
affect personnel tempo and dwell time ratios?
    Answer. The Iraq drawdown should increase the dwell time for our 
units as fewer forces will need to be deployed. How much this would 
increase dwell time depends on the level of forces needed for 
Afghanistan. There will be more clarity on this issue when the strategy 
and commensurate force plans for Afghanistan are finalized.
    Question. In your view, what will be the effect on recruiting, 
retention, and readiness of the Army and Marine Corps of the current 
rates of operations and personnel tempo through 2010?
    Answer. I do not have enough information to assess the impacts on 
readiness. It is my understanding that current rates of operations and 
personnel tempo have not negatively impacted recruiting and retention. 
If confirmed, I would monitor these areas carefully as the Department's 
recent successes may be due to current economic factors.
    Question. In your judgment, what would be the impact on the current 
rates of operations and personnel tempo of assigning principal 
responsibility for crisis and consequence management for natural, 
domestic disasters to Reserve component forces?
    Answer. I cannot make an informed assessment at this time. If 
confirmed, I would certainly study this matter closely.
     mobilization and demobilization of national guard and reserves
    Question. Over the past 8 years, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems arose in the planning and procedures 
for mobilization and demobilization, e.g., inadequate health screening 
and medical readiness, monitoring, antiquated pay systems, limited 
transition assistance programs upon demobilization, and lack of access 
to members of the Individual Ready Reserve. Reserve Force management 
policies and systems have been characterized in the past as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. It is my understanding that improvements have been made in 
increasing the alert and mobilization times prior to mobilization; 
however, we need to ensure that we provide predictability to 
servicemembers, their families and employers. If confirmed, I would 
monitor this issue as I believe strongly that National Guard and 
Reserve personnel deserve first-class mobilization and demobilization 
procedures, health screening, and transition assistance programs.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. It is my understanding that one of the most significant 
enduring changes is in the implementation of service force generation 
plans, which have transitioned many of the Reserve components into an 
operational force. This enables units to train for a mission prior to 
mobilization and deploy and redeploy on a predictable time line.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. Not at this time. If confirmed, I would review existing 
authorities and determine if any modifications are necessary.
    Question. Do you believe that National Guard and Reserve personnel 
should be mobilized to perform duties that should more appropriately be 
assigned to civilians deployed to Afghanistan?
    Answer. I do not have detailed knowledge on this matter, but it is 
my understanding that some Guard and Reserve personnel have been 
utilized to provide a bridge to meet immediate operational needs until 
more civilians are available to respond to the requirements.
              medical and dental readiness of the reserves
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the Committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. I do not have any recommendations at this time. If 
confirmed, I would review these reporting responsibilities and 
recommend changes as appropriate.
    Question. How would you improve upon the Department's ability to 
produce a healthy and fit Reserve component?
    Answer. I do not have specific recommendations at this time, but I 
believe strongly that command emphasis and individual accountability 
must be in place for producing and maintaining a healthy and fit force. 
Both medical and dental readiness requires senior level attention and 
direction.
                            lessons learned
    Question. What do you believe are the major lessons learned from 
Operation Enduring Freedom and Operation Iraqi Freedom which you would 
seek to address if confirmed as Under Secretary of Defense for 
Personnel and Readiness?
    Answer. Our Nation's Total Force is a combination of interrelated 
components: Active, Reserve, and civilian, and all are necessary for a 
successful campaign. Success also depends on the care given to those 
deployed and to their families as we keep the trust of our Nation by 
properly caring for our warriors and their families. We must ensure 
that the force is adaptive in acquiring necessary skills, such as 
foreign language capability to meet today's missions.
            defense prisoner of war/missing personnel office
    Question. Some survivors of Prisoners of War (POW)/Missing in 
Action (MIA) military personnel and their advocates allege that 
insufficient attention and resources are being committed to recovery of 
U.S. personnel missing from conflicts from World War II to the present.
    In view of the mission of Defense Prisoner of War/Missing Personnel 
Office (DPMO), do you think that this organization, as well as the 
Joint POW/MIA Accounting Command should receive greater resources in 
terms of personnel and budget than is currently the case?
    Answer. The DPMO is under the purview of USD(Policy), and I 
respectfully defer to USD Flournoy on the appropriate levels of 
personnel and budget to support DPMO's mission.
    Question. Do you believe the Under Secretary of Defense for 
Personnel and Readiness should have a larger role in the oversight of 
the POW/MIA accounting community?
    Answer. DPMO has an important mission that I fully support. If 
confirmed, I would work closely with USD(Policy) to provide any 
assistance she may need from me.
                        military quality of life
    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality of life factors for military families, such as family 
support, child care, education, health care and morale, welfare, and 
recreation services.
    How do you perceive the relationship between quality of life 
improvements and your own top priorities for military recruitment and 
retention?
    Answer. Quality of life efforts impact the recruitment and 
retention of military personnel and are key to maintaining the All-
Volunteer Force. Satisfaction with various aspects of military life by 
the servicemember and the family affects members' decision to reenlist. 
If confirmed, I would assess how effectively our programs meet the 
needs of servicemembers and their families, and ensure that they are 
contributing positively to recruitment, retention, and readiness.
    Question. If confirmed, what further enhancements to military 
quality of life would you make a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. I would aggressively pursue the President's agenda to 
improve quality of life for military families by focusing our efforts 
on identifying the clearest possible understanding of the needs of our 
force and their families, and rapidly responding to gaps or shortfalls 
with quality programs. We must communicate effectively to ensure 
families know how to access available support when they need it.
                             family support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. If confirmed, I would make family readiness issues one of 
my top priorities. I would prioritize and resource appropriately 
quality physical and mental healthcare, spouse career assistance, 
childcare, other elements of dependant support, and education needs.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and growth in end 
strength?
    Answer. If confirmed, I would continue the Department's current 
approach to identify and address family readiness needs, to gather 
information from commands, servicemembers and families, professional 
organizations, and researchers about these and other stressors.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. If confirmed, I would ensure that the Department's Yellow 
Ribbon Program is properly focused and funded to address the issues 
faced by members of the Guard, Reserve, and their families. The program 
should provide information, access, referrals, and outreach to military 
members and their families. This needs to be underwritten by a 
coordinated, community based network of care encompassing DOD, VA, 
State, local, and private providers. My goal would be a full range of 
services available to Active, Guard, and Reserve members and their 
families.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. If confirmed, I would encourage the implementation of 
flexible family support programs that meet the needs of our 
servicemembers and their families whether they live on military 
installations, near military installations, or far from military 
installations.
                         access to health care
    Question. As evidenced in a family support hearing held by the 
Subcommittee on Personnel earlier this year, one of the major concerns 
for military family members is access to health care. Military spouses 
told the Subcommittee that the health care system is inundated, and 
those stationed in more remote areas may not have access to adequate 
care.
    If confirmed, what steps would you take to ensure complete access 
to health care for the families of servicemembers?
    Answer. If confirmed, I would strive to deliver on our obligation 
to fully support the families of our servicemembers with a health care 
organization that anticipates and meets all of their health care needs 
with an accessible, top quality system that puts the patient and family 
at the center of its focus.
  office of community support for military families with special needs
    Question. In the NDAA for Fiscal Year 2010 (section 563), Congress 
required the establishment of an Office of Community Support for 
Military Families With Special Needs within the Office of the Under 
Secretary of Defense for Personnel and Readiness. The purpose of this 
office is to enhance and improve DOD support for military families with 
special needs, be they educational or medical in nature.
    In your view, what should be the priorities of this Office of 
Community Support for Military Families With Special Needs?
    Answer. If confirmed, I would support the establishment of this 
office and work with the Services to identify and make available those 
programs that already exist that can provide special services to this 
population. Medical and education programs for military families with 
special needs would be a high priority for me.
    Question. If confirmed, how would you ensure outreach to those 
military families with special needs dependents so they are able to get 
the support they need?
    Answer. If confirmed, I would ensure increased communication effort 
to reach families with special needs, to include base newspapers, 
commissaries and exchanges, childcare centers and youth facilities, DOD 
schools, and a variety of DOD and Service Web sites, blogs, and social 
media outlets.
                       medical research programs
    Question. What do you see as the highest priority medical research 
investment areas for DOD?
    Answer. I believe the highest priorities are to address critical 
research capability gaps related to the treatment and recovery of 
wounded warriors, such as the diagnosis and treatment of Traumatic 
Brain Injury, Post Traumatic Stress Disorder. and other elements of 
combat-related stress, development of improved prosthetics, treatment 
of eye injury, and other deployment and battlefield-related injuries.
    Question. If confirmed, how will you assess the amount of 
investment made in these research areas to determine if they are 
sufficient to meet DOD goals and requirements?
    Answer. If confirmed, I would review the current research portfolio 
to ensure it prioritizes and resources research appropriately.
    Question. How will you ensure that DOD medical research efforts are 
well coordinated with similar research programs within the private 
sector, academia, the Services, the Department of Veterans Affairs, and 
the National Institutes of Health?
    Answer. If confirmed, I would support coordination efforts to 
ensure that research is being conducted jointly, building on and 
partnering with industry, academia, and other Government agencies to 
ensure the greatest return to our warfighters. I am aware that joint 
technology coordinating groups have been established to engage with 
those partners to ensure that our research reflects the best interests 
of our soldiers, sailors, airmen, and marines.
    Question. How will you ensure that new medical technologies 
(including drugs and vaccines) are independently and adequately tested 
before their use by DOD organizations and personnel?
    Answer. If confirmed, I would ensure that the Department applies 
the highest standards of the Food and Drug Administration (FDA) to 
ensure new medical technologies, drugs, and vaccines are safe and 
effective before they are adopted for use in the Department.
    Question. What are your biggest concerns related to the DOD medical 
research enterprise?
    Answer. Although I do not have detailed knowledge of the entire 
research portfolio, I am especially interested in ensuring the 
responsiveness of the research program to medical readiness and our 
warfighters medical needs.
                       tricare support contracts
    Question. TRICARE managed care support contracts are among the 
largest service support contracts in DOD, and are a critical element of 
ensuring access to health care for DOD's 9.3 million beneficiaries. 
After months of delay, three vendors were selected for performance 
under the so-called T-3 TRICARE contracts, however, GAO has sustained 
protests filed in two of these contracts. If confirmed, large health 
care and information technology contracts and acquisitions will be 
under your purview.
    How will you assess the adequacy and appropriateness of the Office 
of P&R's acquisition and contracting processes, and what steps would 
you take to improve them?
    Answer. I am informed that care for all DOD beneficiaries will 
continue without interruption under extensions of the Department's 
current TRICARE contracts. If confirmed, I would conduct a review of 
the existing acquisition workforce to ensure that they are properly 
trained and staffed, understand their responsibilities, and are aligned 
within the organization in accordance with the principles and 
guidelines from the Office of Management and Budget (OMB) and the 
Department, as well as good management practices. I would also evaluate 
the existing policies and processes governing the contracting for DOD 
health care and complementary products to determine if the Department 
is leveraging the best practices of government and industry in meeting 
these acquisition challenges. Finally, I would partner with subject 
matter experts in the Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics to seek their ideas and support 
to implement these solutions.
                      armed forces retirement home
    Question. Although defined as an independent Government entity, the 
Armed Forces Retirement Home (AFRH) is subject to the authority, 
direction and control of the Secretary of Defense. As such, the 
committee expects oversight of not only the quality of operations of 
the AFRH in serving our Nation's veterans, but also prudent business 
planning for its future financial viability.
    If confirmed, what would be your relationship with the Chief 
Operating Officer (COO) of the AFRH?
    Answer. The Secretary of Defense has delegated oversight 
responsibilities to the USD(P&R) and the PDUSD(P&R). These 
responsibilities include the appointment, performance evaluation, and 
compensation of the COO, appointment of the Home(s) Directors, Deputy 
Directors, Associate Directors, and members of the local Board(s) of 
Trustees. If confirmed. I would exercise oversight responsibilities and 
ensure medical care and retirement community services meet or exceed 
those established in law. I would ensure the local Board(s) of Trustees 
operate consistently with statute, provide guidance to the COO and 
Directors of the facilities, and provide me with an annual assessment 
of all aspects of AFRH. I would ensure health care accreditation is 
maintained and all findings from the recently completed DOD Inspector 
General (IG) comprehensive management and medical services inspection 
are resolved. I would also ensure staff and resident concerns are 
addressed through climate assessments and frequent monitoring of AFRH 
and DOD IG hotline complaints and I would be responsive to all 
complaints to ensure appropriate corrective action is taken.
    Question. What is your view of the challenges that the Department 
faces in ensuring the highest quality service and care for veterans, as 
well as ensuring the future viability of the home in challenging 
economic times?
    Answer. If confirmed, the highest quality of care and services for 
residents would be a primary focus of mine. I would maintain 
accreditation by the Commission on Accreditation of Rehabilitation 
Facilities and Continuing Care Accreditation Commission (CARF/CCAC) for 
independent, assisted living and long-term care.
    It is my understanding that one of the biggest challenges in 2010 
will be the opening of a new facility in Gulfport, MS, with resident 
occupancy beginning in October. Another significant project is approved 
for 2010 construction at AFRH-Washington.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel and retirees.
    What challenges do you foresee in sustaining MWR programs and, if 
confirmed, what improvements would you seek to achieve?
    Answer. From my own military experience, I know that commanders 
have long appreciated the benefits of strong MWR programs so critical 
to Espirit de Corps, stress reduction, and personal health and well-
being. Although there are very extensive installation MWR facilities 
and programs, I believe there is an immediate challenge in ensuring 
that MWR programs for our deployed forces meet their needs. In the 
longer term, I believe the Department needs to understand what programs 
are valued by servicemembers and their families in order to make wise 
investments. In addition, there is a need to understand where gaps 
exist. The MWR customers need to be involved in expressing their needs 
and satisfaction with our programs and policies. If confirmed, these 
are all areas I would aggressively pursue.
                commissary and military exchange systems
    Question. Commissary and military exchange systems are critical 
quality of life components for members of the Active and Reserve Forces 
and their families.
    What is your view of the need for modernization of business 
policies and practices in the commissary and exchange systems, and what 
do you view as the most promising avenues for change to achieve 
modernization goals?
    Answer. The commissary and exchange operate within a broad 
structure of military community and family support programs and 
policies that have a profound impact on the military quality of life 
and standard of living. The commissary and exchange programs and 
policies must continue to evolve to meet the needs and expectations of 
our changing force and a changing marketplace. We need to ensure 
commissaries and exchanges provide the necessary support for today's 
total military force.
    I believe management efforts should be aimed at reducing overhead 
and pursuing new avenues to reach our military families who do not live 
on military installations. The commissary system should deliver 
customer savings and also achieve high satisfaction ratings.
    The military exchange resale community must continue to work, 
individually and collaboratively, to adapt marketing and selling 
practices, invest in technologies, and improve merchandise availability 
to be more responsive to military customers.
    Question. In the Ronald W. Reagan NDAA for Fiscal Year 2005, 
Congress required the Secretary of Defense to establish an executive 
governing body for the commissary and exchange systems to ensure the 
complementary operation of the two systems.
    What is your understanding of the purpose, composition and 
performance of the executive governing body?
    Answer. The Department established the DOD Executive Resale Board 
as the governing body to provide advice to the USD(P&R) regarding the 
complementary operation of the commissary and exchange systems. The 
Board works to resolve issues and has been instrumental in pursuing 
matters of mutual benefit to the elements of the military resale 
system. The Board is chaired by the PDUSD(P&R), and members include 
both the senior military officers and civilians who oversee and manage 
the commissary and exchanges systems.
    Question. If confirmed, what would your role be with respect to the 
governing body, and what would your expectations be for its role?
    Answer. The Secretary designated the PDUSD(P&R) as the chairperson 
of the Executive Resale Board. If confirmed, I would ensure the Board 
would continue to meet regularly to review operational areas of mutual 
interest to the commissary and exchange systems.
                       civilian personnel systems
    Question. Section 1113 of the NDAA for Fiscal Year 2010 repealed 
the statutory authority for the National Security Personnel System 
(NSPS), and required that all NSPS employees be converted to other 
personnel systems by no later than January 1, 2012.
    If confirmed, will you ensure that NSPS employees are converted to 
other personnel systems as quickly as practical, and with as little 
disruption to their organizations and their work as possible?
    Answer. Yes.
    Question. Section 1113 also provides DOD with extensive personnel 
flexibilities for its civilian employees that are not available to 
other agencies. In particular, section 9902(a) of title 5, U.S.C., as 
added by section 1113, directs the Department to establish a new 
performance management system for all of its employees. Section 9902(b) 
directs the Department to develop a streamlined new hiring system that 
is designed to better fulfill DOD's mission needs, produce high-quality 
applicants, and support timely personnel decisions.
    What experience have you had in the development and implementation 
of civilian human resource management systems?
    Answer. During my military career, I worked extensively with both 
military and civilian human resource systems, particularly when I 
served at Marine Corps Headquarters for Manpower and Reserve affairs 
and also as the Commanding General of Marine Corps Air Ground Combat 
Center at Twentynine Palms, CA. During my tenure at the Center, we were 
honored to receive the Department of the Navy's Nathaniel Stinson Equal 
Employment Opportunity Award. As the President of Scholarship America, 
I worked extensively at addressing human resource challenges.
    Question. Do you agree that DOD's civilian employee workforce plays 
a vital role in the functioning of the Department?
    Answer. Yes.
    Question. What is your view of the personnel flexibilities provided 
by section 1113?
    Answer. I understand these flexibilities have been provided by 
Congress to better enable the Department to meet its mission 
requirements. If confirmed, I would explore these flexibilities and 
work to implement those that would best support the Department's 
mission and the well-being of the workforce.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the 
Department and promotes the quality of the Department's civilian 
workforce?
    Answer. Yes.
    Question. How will you approach this task?
    Answer. If confirmed, I would work to assess which flexibilities 
more effectively support mission accomplishment, while addressing the 
well-being of the workforce. I would ensure these flexibilities are 
implemented in an expeditious, fair, and transparent manner. 
Furthermore, I would establish assessment criteria and conduct periodic 
assessments to ensure the flexibilities are meeting the stated 
objectives.
    Question. Section 1112 of the NDAA for Fiscal Year 2010 directs the 
Department to develop a Defense Civilian Leadership Program to recruit, 
train, and advance a new generation of civilian leaders for the 
Department. Section 1112 provides the Department with the full range of 
authorities available for demonstration programs under section 4703 of 
title 5, U.S.C., including the authority to compensate participants on 
the basis of qualifications, performance, and market conditions. These 
flexibilities are not otherwise available to DOD.
    Do you agree that the Department needs to recruit highly qualified 
civilian personnel to meet the growing needs of its acquisition, 
technical, business, and financial communities?
    Answer. Yes.
    Question. In your view, has the existing civilian hiring process 
been successful in recruiting such personnel and meeting these needs?
    Answer. Although I believe the Department currently has a highly 
talented workforce, I wholeheartedly support the initiatives to 
streamline and reform the civilian hiring process. There is much work 
to be done in this area, and if confirmed, I would ensure that the 
Department is actively engaged in the Government-wide initiative to 
reform civilian hiring and aggressively pursues improvements within the 
Department.
    Question. If confirmed, will you make it a priority to implement 
the authority provided by section 1112 in a manner that best meets the 
needs of the Department and promotes the quality of the Department's 
civilian workforce?
    Answer. Yes.
                         human capital planning
    Question. Section 115b of title 10, U.S.C., as added by section 
1108 of the NDAA for 2010 requires the Secretary of Defense to develop 
and annually update a strategic human capital plan that specifically 
identifies gaps in the Department's civilian workforce and strategies 
for addressing those gaps. Section 115b requires that the plan include 
chapters specifically addressing the Department's senior management, 
functional, and technical workforce and the Department's acquisition 
workforce.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. Yes.
    Question. Do you see the need for any changes in the requirements 
of section 115b, regarding the requirement for a strategic human 
capital plan?
    Answer. I have no recommendations at this time. If confirmed, I 
would look at the strategic human capital planning that the Department 
has conducted over the past years against the section 115b requirements 
to determine if any changes may be needed to improve the Department's 
overall workforce planning effort.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes.
      balance between civilian employees and contractor employees
    Question. In recent years, DOD has become increasingly reliant on 
services provided by contractors. Over the past 8 years, DOD's civilian 
workforce has remained essentially unchanged in size. Over the same 
period, the Department's spending on contract services has more than 
doubled, with the estimated number of contractor employees working for 
the Department increasing from an estimated 730,000 in fiscal year 2000 
to an estimated 1,550,000 in fiscal year 2007. As a result of the 
explosive growth in service contracts, contractors now play an integral 
role in the performance of functions that were once performed 
exclusively by government employees, including the management and 
oversight of weapons programs, the development of policies, the 
development of public relations strategies, and even the collection and 
analysis of intelligence. In many cases, contractor employees work in 
the same offices, serve on the same projects and task forces, and 
perform many of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of DOD?
    Answer. If confirmed, I would support the Secretary's initiative 
announced with the fiscal year 2010 budget to reduce the number of 
support service contractors from the current 39 percent of the 
workforce to the pre-2001 level of 26 percent. I believe the desired 
outcome of the Department's in-sourcing initiative is a balanced total 
workforce of military, Government civilians, and contractor personnel 
that appropriately aligns functions to the public and private sector, 
and results in the best value for the taxpayer.
    Question. In your view, has DOD become too reliant on contractors 
to perform its basic functions?
    Answer. If confirmed, I would support the Department's ongoing 
efforts to critically examine currently contracted functions. Striking 
a balance between Government and contractor performance that ensures 
uncompromising Government control of critical functions, while 
providing best value to the taxpayer, is imperative.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. I cannot make an informed assessment at this time. It is my 
understanding that, as part of the Department's in-sourcing initiative, 
all contracts for Services will be reviewed to ensure unauthorized 
personal services are not being provided.
    Question. Do you believe that DOD should undertake a comprehensive 
reappraisal of ``inherently governmental functions'' and other critical 
government functions, and how they are performed?
    Answer. I am informed that the Office of Management and Budget is 
reviewing the definition of ``inherently governmental'' function and 
the manner in which agencies identify critical functions to be 
performed by Federal employees. If confirmed, I would review the OMB 
study and evaluate if a reappraisal of the Department's critical and 
``inherently governmental'' functions is required.
    Question. If confirmed, will you work with other appropriate 
officials in DOD to address these issues?
    Answer. Yes.
                         acquisition workforce
    Question. Over the past 15 years, DOD has dramatically reduced the 
size of its acquisition workforce, without undertaking any systematic 
planning or analysis to ensure that it would have the specific skills 
and competencies needed to meet current and future needs. Since 
September 11, 2001, moreover, the demands placed on that workforce have 
substantially increased. Section 852 of the NDAA for Fiscal Year 2008 
established an Acquisition Workforce Development Fund to help DOD 
address shortcomings in its acquisition workforce. The fund would 
provide a minimum of $3 billion over 6 years for this purpose.
    Do you believe that DOD acquisition workforce is large enough and 
has the skills needed to perform the tasks assigned to it?
    Answer. No. If confirmed, I would fully support the Secretary's 
goal to add approximately 20,000 acquisition workforce professionals to 
the Department over the next 5 years.
    Question. Do you support the use of the DOD Acquisition Workforce 
Development Fund to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes.
               laboratory personnel demonstration program
    Question. The laboratory demonstration program founded on section 
342 of the NDAA for Fiscal Year 1995 as amended by section 1114 of the 
NDAA for Fiscal Year 2001, section 1107 of the NDAA for Fiscal Year 
2008, section 1108 of the servicemember for Fiscal Year 2009, and 
section 1105 of the NDAA for Fiscal Year 2010, paved the way for 
personnel management initiatives and new flexibilities at the defense 
laboratories. These innovations have been adopted in various forms 
throughout other DOD personnel systems.
    If confirmed, will you fully implement the laboratory demonstration 
program and the authorities under these provisions?
    Answer. Yes.
    Question. If confirmed, will you ensure that the directors of the 
defense laboratories are provided the full range of personnel 
flexibilities and authorities provided by Congress?
    Answer. Yes.
                   scientific and technical workforce
    Question. Do you feel that DOD's research and technology 
organizations (e.g., DARPA, laboratories, and technical centers) have 
sufficiently innovative and flexible personnel systems to enable them 
to compete successfully to hire a very limited pool of clearable 
scientists and engineers in the face of competition from industry, 
academia, federally funded R&D centers, and other Federal (non-DOD) 
laboratories?
    Answer. I cannot make an informed assessment at this time. If 
confirmed, I would explore with DOD's research and technology 
organizations whether they have the flexibilities they need to compete 
successfully for the scientists and engineering talent and to address 
shortfalls, as appropriate.
    Question. What new personnel system innovations and flexibilities 
would you delegate to DOD technical organizations to enable them to 
better compete for technical talent?
    Answer. Although I have no recommendations at this time, if 
confirmed, I would explore with the DOD technical organizations the 
additional flexibilities they may need to better enable them to meet 
their mission requirements.
             defense civilian intelligence personnel system
    Question. Section 1114 of the NDAA for Fiscal Year 2010 suspends 
the implementation of the Defense Civilian Intelligence Personnel 
System (DCIPS) for 1 year, and requires that a review of DCIPS be 
conducted by an independent organization.
    What is your view of DCIPS?
    Answer. I do not have detailed knowledge of the program. I am 
informed that an independent review of DCIPS will be undertaken shortly 
and, if confirmed, I would look forward to the results of that review.
    Question. If confirmed, will you ensure that the independent review 
required by section 1114 is carried out as required, and is used to 
guide the Department's decisions on the further implementation of 
DCIPS?
    Answer. Yes.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    In your view, what should be the priorities of the Federal 
Government to expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. DOD is the Nation's largest employer of personnel with 
foreign language skills, both civilian and military. If confirmed, I 
would support efforts to educate a broader pool of Americans with 
skills in critical languages. I believe the Nation must build a 
globally-competent workforce by educating a larger pool of language and 
internationally competent high school and college graduates from which 
DOD and other Federal Government agencies can recruit.
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. It is my understanding that the Department is currently 
engaged in building programs to address the need for language 
capability in its forces and its civilian workforce. If confirmed, I 
would work with the Joint Staff and the military departments to ensure 
that requirements are identified within the force, and that training, 
education, and personnel management programs are designed to meet those 
requirements.
    Question. What is your assessment of an appropriate time frame 
within which results can be realized in this critical area?
    Answer. If confirmed, I would support efforts to build foundational 
language capability within the Department. Language acquisition, 
particularly at advanced levels, takes a considerable amount of time, 
this is particularly true in the more difficult languages. To improve 
language proficiency and regional expertise in the officer corps, the 
Department needs to start early in servicemembers' careers and grow 
capability over time.
           defense integrated military human resources system
    Question. The Department and the Services continue to work toward 
adoption of Defense Integrated Military Human Resources System (DIMHRS) 
as a cross-service, fully integrated personnel and pay system. Under 
the proposed timeline, the Army is the first in line to launch DIMHRS, 
with the Air Force, Navy, and Marine Corps to follow. Recent reports 
indicate technical difficulties have postponed the Army's launch date.
    What is your assessment of the need for an integrated, cross-
Service personnel and pay system?
    Answer. The functional needs that formed the basis for DIMHRS still 
exist. However, it is my understanding that each service will be 
allowed to build their own integrated, personnel and pay systems using 
the original DIMHRS configured software investment to the maximum 
extent practical. If confirmed, I would assess this plan to ensure that 
it meets DOD's needs.
    Question. What metrics would you use to assess the Department's and 
Services' progress in developing and deploying DIMHRS?
    Answer. I believe the best metrics for determining success are 
improved accuracy and timeliness of military compensation and better 
tracking of our servicemembers as they change status from Active to 
Reserve/Guard, and possibly back, and compliance with policies and laws 
governing personnel and pay eligibility.
    Question. What is the status of the implementation of DIMHRS?
    Answer. I do not have details of the status of DIMHRS, but it is my 
understanding that since implementation of DIMHRS is now a service 
responsibility, there are specific implementation plans or schedules 
for each service. If confirmed I intend to closely monitor each 
service's progress and implementation.
    Question. If confirmed, what changes, if any, would you recommend 
to the implementation schedule and process currently in place?
    Answer. I do not have any recommended changes at this time. If 
confirmed, I would review and assess the current schedule and process.
    Question. If confirmed, what role do you plan to play in oversight 
over and direction of Service efforts to develop and deploy DIMHRS?
    Answer. The USD(P&R) is responsible and accountable for any system 
whose primary purpose is Human Resources Management (HRM) activities 
within the DOD. If confirmed I would review and assess the current 
direction and effort the Services are taking in development and 
deployment of their respective systems. I would actively participate in 
the governance structure to include the NDAA 2010 mandated DIMHRS 
Transition Council and would focus on compliance with enterprise 
standards the individual service systems must support.
                            gi bill benefits
    Question. Last year Congress passed the post-September 11 Veterans 
Educational Assistance Act that created enhanced educational benefits 
for servicemembers who have served at least 90 days on Active Duty 
since September 11. The maximum benefit would roughly cover the cost of 
a college education at any public university in the country.
    What is your assessment of the effect of the post-September 11 
Veterans Educational Assistance Act on recruiting and retention of 
servicemembers?
    Answer. The post-September 11 GI Bill only became effective on 
August 1, 2009, so it is premature to fully gauge the impact of the 
post-September 11 GI Bill on either recruiting or retention. If 
confirmed, I would monitor the effects of the implementation of this 
act very closely.
    Question. What is your view of the effectiveness of the 
transferability provisions contained in the act on retention of mid- 
and late-career servicemembers?
    Answer. Since participation requires substantial time in service, 
and a commitment to additional service, the impact promises to be 
positive, even though it has just begun. I am informed that almost 
80,000 career servicemembers have taken advantage of this provision. If 
confirmed, I would monitor the effects of the provisions of this act 
very closely.
              quadrennial review of military compensation
    Question. The Department recently completed work on the 10th 
Quadrennial Review of Military Compensation (QRMC), releasing Volume I 
of its report in February 2008 and Volume II in July 2008. Among other 
recommendations, the QRMC proposes a new defined benefit retirement 
plan that more resembles the benefits available under the Federal 
Employee Retirement System than the current military retirement 
benefit; increasing TRICARE fees for retirees; and the adoption of 
dependent care and flexible spending accounts for servicemembers.
    What is your assessment of the QRMC recommendations, particularly 
the proposed new defined retirement plan?
    Answer. I have not reviewed this report in detail, but I know that 
one of its major recommendations was the consolidation of special and 
incentive pays--a provision already enacted and now being implemented.
    It is my understanding that the 10th QRMC explored and examined 
alternatives to the current compensation system and proposed 
alternatives for the Department to consider. If confirmed, I look 
forward to reviewing this and other proposals with the Military 
Departments and Services.
    Question. Do you believe that servicemembers should have access to 
flexible spending arrangements?
    Answer. I don't have a recommendation at this time but, if 
confirmed, I would review this issue carefully.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are supposed 
to be assigned to follow-on positions in their Services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the value of the Legislative Fellows 
program to DOD?
    Answer. I believe this program is a valuable educational experience 
for our military and civilian members. Fellows coming to Congress from 
DOD provide a valuable perspective. From my past experiences, I know 
that those with the clear understanding of how the Department interacts 
with Congress are advantaged when they move to senior leadership 
positions.
    Question. What is your assessment of the career development and the 
utilization of officers who have served as legislative fellows?
    Answer. I do not have sufficient insight to make an assessment, but 
I believe the experiences and insights legislative fellows gain are 
valuable in senior leadership positions.
    Question. What do you consider to be the appropriate number of 
legislative fellows by Service each year?
    Answer. I cannot make a specific recommendation, but it is my 
understanding that DOD expanded from 26 to 100 legislative fellows over 
the past 2 years. If confirmed, I would review this program and 
recommend changes as appropriate.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Evan Bayh
                              reset issues
    1. Senator Bayh. Dr. Stanley, after years of persistent combat in 
Iraq and Afghanistan the readiness of our Armed Forces continues to be 
consumed as soon as it is created. Congress and particularly this 
committee have consistently resourced every funding request and 
dedicated billions of dollars specifically for reset. I understand the 
demand for forces and operational tempo remains high and we are here to 
help you, yet after years of investing and attempting to restore the 
readiness of our Armed Forces, it appears we still have not made any 
progress toward that goal. What needs to be done to address this 
continued decline in readiness?
    Dr. Stanley. There is no doubt persistent operations around the 
globe have challenged our ability to keep our forces ready. In my view, 
efforts underway to address the challenges of persistent combat have 
been effective. Our forces have been upgraded with advanced equipment 
and new capabilities to address today's complex operations and 
irregular warfare. While I would strive to make improvements in the 
process and improve readiness, currently I believe that our forces are 
fully capable and ready for the missions assigned to them.

                   defense readiness reporting system
    2. Senator Bayh. Dr. Stanley, in 1999, Congress required the 
Department of Defense (DOD) to develop and implement a new readiness 
reporting system, uniformly applied, which would provide decision 
makers with more accurate and reliable assessments and data regarding 
the actual capabilities and readiness of U.S. forces. In June 2002, DOD 
issued a directive establishing the Defense Readiness Reporting System 
(DRRS) and requiring that all military departments align their 
readiness reporting processes with DRRS. Since then, DOD and the 
Services have taken a number of developmental steps, but DRRS is not 
yet fully operational and aligned with the Services' reporting 
processes. According to a Government Accountability Office (GAO) study 
released in September 2009, the Department has still yet to 
successfully plan, organize, resource, and execute relevant or 
necessary interoperability, user, and other tests to validate DRRS for 
deployment as the Department's readiness reporting system replacement. 
After 10 years, why have we still not fully implemented DRRS?
    Dr. Stanley. It is my understanding that DRRS should be fully 
operational by the end of fiscal year 2011, and, if confirmed, I would 
work to achieve that goal.

                   cuts to operations and maintenance
    3. Senator Bayh. Dr. Stanley, as you well know readiness rates 
within the Services continue to deteriorate. One disturbing trend which 
could exacerbate the overall readiness of the Services would be funding 
cuts to operation and maintenance (O&M) accounts. Rising costs, 
reprogramming requests, and other needs of the Department often require 
offsets which historically have been taken out of O&M. How do you see 
this trend progressing and what affects do you anticipate it having on 
overall readiness of the Services?
    Dr. Stanley. Sufficient levels of funding are essential to ensure 
our forces are fully trained and unit equipment is properly maintained. 
The budgeting process takes place on an annual basis, and the only way 
to improve the process is to remain actively engaged year round. If 
confirmed, I would work to ensure that these accounts are responsibly 
funded and maintained.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                   healthcare for military in alaska
    4. Senator Begich. Dr. Stanley, Active Duty military, their 
families, and retirees face many challenges accessing health care in 
Alaska. The military treatment facilities at Forts Wainwright and 
Elmendorf are top quality and provide many services to military members 
and their families. However, many specialties are either not available 
at the military treatment facilities or at capacity, and cannot 
accommodate all customers. Many civilian specialists in Alaska do not 
participate in the TRICARE network. As a result, certain health care 
needs of military members and their families in Alaska are not being 
met. If confirmed, what steps would you take to improve access to 
healthcare in Alaska?
    Dr. Stanley. It is my understanding that existing access challenges 
for health care services for servicemembers stationed in Alaska partly 
depend on the part of the State in which a servicemember is stationed 
and that other challenges have been created by the deployment of health 
care professionals. At the same time, I have been informed that a 
number of areas in Alaska possess an impressive range of services from 
basic care to specialty medical treatments. While the circumstances 
surrounding limitations on health care services vary, and are complex, 
if confirmed, I pledge to work to improve these services to the best of 
my ability so that our servicemembers have access to the fullest 
spectrum of health care possible; they deserve no less.

    5. Senator Begich. Dr. Stanley, if confirmed, please describe how 
you would work with TRICARE Management Agency as they work to increase 
the TRICARE network in Alaska to provide for better access to health 
care for our servicemembers and their families.
    Dr. Stanley. I have been informed that TRICARE is currently 
reviewing its processes for recruiting health care providers in Alaska, 
and a number of initiatives to improve these processes are under 
consideration to increase the number of providers, ensure both 
beneficiary and provider satisfaction, with the ultimate aim to 
increase confidence in the quality of the TRICARE-authorized provider 
base in Alaska. If confirmed, I would use this ongoing process as a 
starting point to improve health care for servicemembers stationed in 
Alaska.

                      kosovo rest and recuperation
    6. Senator Begich. Dr. Stanley, servicemembers deployed to Kosovo, 
typically national guardsmen, are authorized a mid-tour leave for rest 
and recuperation (R&R). However, the current regulations only authorize 
funding for travel from Kosovo to Baltimore, MD (BWI) as the point of 
embarkation in the United States. Travel from BWI to the 
servicemember's R&R location is then paid for by the servicemember. For 
those from Alaska, this can cost as much as $1,400 round trip, much 
more than their counter parts in the lower 48 contiguous States. This 
is an unacceptable financial burden many National Guard members cannot 
afford, especially those from remote Alaskan villages where they may be 
the only wage earner in the family. The impact of this financial burden 
may deter recruitment and retention of economically challenged Alaskan 
Natives. At my urging, the Secretary of the Army proposed adding two 
additional points of embarkation be authorized; Houston, TX and Los 
Angeles, CA. The Army's proposal was sent to the Under Secretary of 
Defense for Personnel and Readiness (USD (P&R)) on June 3, 2009. I have 
since followed up with the P&R office multiple times, but in the past 5 
months no progress or final determination has been made. The unit from 
Alaska stationed in Kosovo has since redeployed. However, other units 
that deploy to Kosovo in the future will continue to bear the unfair 
financial burden. If confirmed, what action, if any, will you take on 
this matter and what do you believe is an appropriate length of time to 
address and respond to matters of interest to Members of Congress?
    Dr. Stanley. If confirmed, I would look into this issue and pursue 
possible remedies. Additionally, I pledge to ensure that matters of 
interest to Members of Congress are answered in a timely manner.
                                 ______
                                 
             Question Submitted by Senator Roland W. Burris
                 selected reserve continuum of care act
    7. Senator Burris. Dr. Stanley, my colleague, Senator Blanche 
Lincoln, has a bill called the Selected Reserve Continuum of Care Act, 
which would provide advanced physical and dental screenings to our 
Reserve component prior to deployment. If you are confirmed, how would 
you address the need of pre-deployment screenings and care of our 
Nation's Reserve component?
    Dr. Stanley. If confirmed, I would ensure that DOD continues to 
strive for excellence in maintaining the medical and dental health of 
our members for a fully operational and ready Total Force. I would work 
with Secretary Gates to provide our servicemembers with all appropriate 
levels of health care.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                            military voting
    8. Senator Chambliss. Dr. Stanley, this year Congress passed 
landmark legislation known as the Military and Overseas Voter 
Empowerment Act (MOVE Act) designed to help one of our most 
disenfranchised voting blocks in America; our military servicemembers 
serving overseas. If confirmed, will you pledge to give Bob Carey and 
the Federal Voting Assistance Program all the personnel and support 
they need to carry out this new legislation?
    Dr. Stanley. If confirmed, I would ensure that P&R supports the 
implementation of legislation.

    9. Senator Chambliss. Dr. Stanley, one of the provisions in the 
MOVE Act not adopted by Congress was sec. 590(b) of S.1390, a provision 
based upon legislation crafted by Senator Cornyn as part of his bill, 
S. 1265. This provision would have established voting assistance 
centers at military installations, under the specific terms of the 
National Voter Registration Act (or the ``motor-voter'' law). DOD 
opposed this provision and it was ultimately removed from the bill. If 
confirmed, will you review the Department's position on this issue and 
pledge to work with the appropriate congressional offices to reach an 
agreeable solution to ensure we provide military servicemembers and 
their families the proper amount of voting assistance?
    Dr. Stanley. I support the Deputy Secretary's decision, as stated 
in the December 16, 2009 letters to Senators Schumer and Cornyn, that 
DOD ``will designate all military installation voting assistance 
offices as NVRA agencies.'' It is my understanding, that the Department 
is currently developing those regulations and is coordinating with the 
Department of Justice to ensure correct implementation of the relevant 
statutory authorities.

    10. Senator Chambliss. Dr. Stanley, specifically, regarding section 
583(b) of the recently enacted National Defense Authorization Act for 
Fiscal Year 2010, what are your thoughts in relation to how you would 
advise the Secretary of Defense regarding exercising the authority 
granted to him to designate voting assistance offices on military 
installations as voter registration agencies under section 7(a)(2) of 
the National Voter Registration Act of 1993 (42 U.S.C. 1973gg-5(a)(2))?
    Dr. Stanley. I support the Deputy Secretary's decision, as stated 
in the December 16, 2009 letters to Senators Schumer and Cornyn, that 
DOD ``will designate all military installation voting assistance 
offices as NVRA agencies.'' It is my understanding, that the Department 
is currently developing those regulations and is coordinating with the 
Department of Justice to ensure correct implementation of the relevant 
statutory authorities.

                              end strength
    11. Senator Chambliss. Dr. Stanley, for years Congress felt that 
the end strength of our military was insufficient to conduct two wars, 
properly reset our forces and give them the amount of dwell time they 
need, and continue to prepare for future wars. This year, Congress 
passed legislation authorizing fiscal year 2010 Active Duty end 
strengths for the Army, of 562,400; the Marine Corps, of 202,100; the 
Air Force, of 331,700; and the Navy, of 328,800. It also authorizes the 
Secretary of Defense to increase the Army's Active Duty end strength by 
30,000 above 2010 levels during fiscal year 2011 and fiscal year 2012 
if sufficient funding is requested in the budgets for those fiscal 
years. If confirmed, will you pledge to review all demands across our 
military, taking into consideration the demands of tasks outside of 
deployments as well as a part of deployments to ensure we properly size 
the military?
    Dr. Stanley. If confirmed, one of my top priorities would be an 
ongoing examination of demands placed on our troops and their families. 
Our servicemembers (Active and Reserve) continue to perform 
extraordinarily well in light of the great demands we have placed upon 
them. I believe strongly that we cannot fail to have the right numbers 
and kinds of uniformed personnel to win our wars, and to deter 
potential adversaries. I understand that our Active and Reserve forces 
must be large enough to not only satisfy deployed demands, but also 
have a rotation base with requisite dwell time to accommodate both 
essential non-deployment challenges (such as training) and the personal 
needs of our troops and their families. I know that Secretary Gates 
shares my concerns on this issue, and I would work diligently with him 
to ensure that our force rotations maximize the length of dwell time 
and enhance military life for servicemembers and their families.

    12. Senator Chambliss. Dr. Stanley, if confirmed, will you also 
review policies on properly identifying servicemembers down to the 
individual level who are in violation of existing dwell time/deployment 
time ratio guidelines to ensure we are not overusing individuals and 
properly using those with little to no deployment time?
    Dr. Stanley. Yes.

                    fort gordon/wounded warrior care
    13. Senator Chambliss. Dr. Stanley, there is no more important task 
than properly caring for wounded warriors and their families. I am 
particularly proud of the work being done at Augusta, GA in this 
regard. Fort Gordon and the Medical College of Georgia have developed 
an interagency model for supporting our wounded warriors through the 
continuum of care that is truly innovative and impressive. If 
confirmed, will you look into this model and assess its potential for 
expansion?
    Dr. Stanley. Yes.

    14. Senator Chambliss. Dr. Stanley, if confirmed, will you also 
review the Medical College of Georgia Nursing School's program to train 
Federal Recovery Coordinators for Wounded Warriors and the potential 
for a Recovery Coordinator Center of Excellence at Fort Gordon?
    Dr. Stanley. Yes.
                                 ______
                                 
    [The nomination reference of Dr. Clifford L. Stanley 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 15, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Clifford L. Stanley, of Pennsylvania, to be Under Secretary of 
Defense for Personnel and Readiness, vice David S.C. Chu, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Clifford L. Stanley, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Clifford Stanley
                               education
    University of Pennsylvania, 2003-2005, Doctorate, 05/2005
    Johns Hopkins University, 1975-1977, Masters, 05/1977
    South Carolina State University, 1965-1969, Bachelors, 05/1969
    Theodore Roosevelt High School, 1962-1965, Diploma, 06/1965
                           employment record
    President, Scholarship America, 07/2004-07/2009
    Executive Vice President, University of Pennsylvania, 10/2002-10/
2003
    Deputy Commanding General, Marine Corps Combat Development Command, 
Quantico, VA, 07/2000-09/2002
    Commanding General, Marine Corps Air Ground Combat Center, 
Twentynine Palms, CA, 07/1998-07/2000
    Director of Marine Corps Public Affairs, Pentagon, Washington, DC, 
07/1996-07/1998
    Assistant Deputy Chief of Staff, Manpower Reserve Affairs (Manpower 
Policy), Washington, DC, 06/1994-07/1996
    Fleet Marine Officer, USS Mount Whitney, Norfolk, VA, 08/1993 to 
05/1993. Infantry Regimental Commander/Assistant Chief of Staff G-4, 
1st Marine Division, Camp Pendleton, CA, 07/1991-07/1993
    Head, Marine Corps Combat Development Command Battle Assessment 
Team, Quantico, VA and Saudi Arabia, 02/1991-06/1991
    Advisor for POW/MIA Affairs and Assistant for Australia and New 
Zealand, Office of the Secretary of Defense, Pentagon, Washington, DC, 
09/1989-02/1991
    White House Fellows Program, Office of the Director of the FBI, 
Washington, DC, 06/1988-08/1989
    Student, National War College, Fort McNair, Washington, DC, 06/
1987-06/1988
    Battalion Commander/Depot Inspector, Marine Corps Recruit Depot, 
Parris Island, SC, 06/1986-06/1987
    Executive Officer Infantry Battalion, 2nd Marine Division, Camp 
Lejeune, NC, 06/1984-06/1986
    Student, Marine Corps Command and Staff College, Quantico, VA, 07/
1983-06/1984
    Special Assistant and Marine Corps Aide, Office of the Assistant 
Secretary of the Navy, Manpower and Reserve Affairs, Pentagon, 
Washington, DC, 10/1981-07/1983
    Officer in Charge, Infantry Writer Unit, Ceremonial Parade 
Commander, Marine Barracks 8th and I, Washington, DC, 06/1979-10/1981
    Infantry Company Commander, 3rd Marine Division, Okinawa, Japan, 
05/1978-06/1979
    Student, Amphibious Warfare School, Quantico, VA, 08/1977-06/1978
    Instructor, United States Naval Academy, Annapolis, MD, 07/1974-08/
1977
    Infantry Company Commander, 2nd Marine Division, Camp Lejeune, NC, 
08/1973-08/1974
    Platoon Commander, Officer Candidate School, Quantico, VA, 07/1972-
08/1973
    Supply Officer, Marine Corps Combat Development Command, Quantico, 
VA, 05/1971-07/1972
    Supply Officer, Headquarters Battalion, 3rd Marine Division, 
Okinawa, Japan, 06/1970-05/1971
    Student, Supply Officer School, Camp Lejeune, NC, 03/1970-05/1970.
    Student, The Basic School, Quantico, VA, 10/1969-03/1970.
                           honors and awards
    Honorary Doctor of Laws Degree from Spalding University
    Honorary Doctor of Laws Degree from South Carolina State University
    NAACP Meritorious Service Award
    NAACP Roy Wilkins Award
    Defense Distinguished Service Medal
    Legion of Merit Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (2 awards)
    Navy Commendation Medal
    Navy Achievement Medal
    Honor Graduate from Johns Hopkins University
    Honor Graduate Marine Corps Command and Staff College
    White House Fellow
    American Legion Award for Inspirational Leadership
    South Carolina State University Hall of Fame
    Clifford L. Stanley Park (named in my honor), Twentynine Palms, CA
    Department of the Navy Nathaniel Stinson EEO Award
    Order of the Sword (honor received from enlisted marines)
    Employee of the Year in Minneapolis/St. Paul Minnesota
    Scholarship America Scholarship created in my honor
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Clifford 
L. Stanley in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Clifford Lee Stanley.

    2. Position to which nominated:
    Under Secretary of Defense for Personnel and Readiness.

    3. Date of nomination:
    October 15, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 31, 1947; Washington, DC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rosalyn Hill Stanley (Maiden Name: Rosalyn Yvonne Hill).

    7. Names and ages of children:
    Angela Yvonne Stanley; age 34.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Pennsylvania--2003 to 2005--Doctorate--05/2005
    Johns Hopkins University--1975 to 1977--Masters--05/1977
    South Carolina State University--1965 to 1969--Bachelors--05/1969
    Theodore Roosevelt High School--1962 to 1965--Diploma--06/1965

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President, Scholarship America, Minneapolis, MN, dates of 
employment: 07/2004 to 07/2009.
    Executive Vice President, University of Pennsylvania, Philadelphia, 
PA, dates of employment: 10/2002 to 10/2003.
    Deputy Commanding General, Marine Corps Combat Development Command, 
Quantico, VA, dates of employment: 07/2000 to 09/2002.
    Commanding General, Marine Corps Air Ground Combat Center, 
Twentynine Palms, CA, dates of employment: 07/1998 to 07/2000.
    Director of Marine Corps Public Affairs, Washington, DC, dates of 
employment: 07/1996 to 07/1998.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Secretary of the Navy Advisory Committee on Naval History, 
08/2008 to Present.
    Member, Naval Research Advisory Committee, 12/2007 to 11/2008.
    Assistant Deputy Chief of Staff, Manpower and Reserve Affairs 
(Manpower Policy), Washington, DC, 06/1994 to 07/1996.
    Fleet Marine Officer, USS Mount Whitney, Norfolk, VA, 08/1993 to 
05/1993.
    Infantry Regimental Commander/Assistant Chief of Staff G-4, 1st 
Marine Division, Camp Pendleton, CA, 07/1991 to 07/1993.
    Head Marine Corps Combat Development Command Battle Assessment 
Team, Quantico, VA and Saudi Arabia, 02/1991 to 06/1991.
    Advisor for POW/MIA Affairs and Assistant for Australia and New 
Zealand, Office of the Secretary of Defense, Pentagon, Washington, DC, 
09/1989 to 02/1991.
    White House Fellows Program, Office of the Director of the FBI, 
Washington, DC, 06/1988 to 08/1989.
    Student, National War College, Fort McNair, Washington, DC, 06/1987 
to 06/1988.
    Battalion Commander/Depot Inspector, Marine Corps Recruit Depot, 
Parris Island, SC; 06/1986 to 06/1987.
    Executive Officer Infantry Battalion, 2nd Marine Division, Camp 
Lejeune, NC, 06/1984 to 06/1986.
    Student, Marine Corps Command and Staff College, Quantico, VA, 07/
1983 to 06/1984.
    Special Assistant and Marine Corps Aide, Office of the Assistant 
Secretary of the Navy, Manpower and Reserve Affairs, Pentagon, 
Washington, DC, 10/1981 to 07/1983.
    Officer in Charge, Infantry Writer Unit, Ceremonial Parade 
Commander, Marine Barracks 8th and I, Washington, DC, 06/1979 to 10/
1981.
    Infantry Company Commander, 3rd Marine Division, Okinawa, Japan, 
05/1978 to 06/1979.
    Student, Amphibious Warfare School, Quantico, VA, 08/1977 to 06/
1978.
    Instructor, U.S. Naval Academy, Annapolis, MD, 07/1974 to 08/1977.
    Infantry Company Commander, 2nd Marine Division, Camp Lejeune, NC, 
08/1973 to 08/1974.
    Platoon Commander, Officer Candidate School, Quantico, VA, 07/1972 
to 08/1973.
    Supply Officer, Marine Corps Combat Development Command, Quantico, 
VA, 05/1971 to 07/1972.
    Supply Officer, Headquarters Battalion, 3rd Marine Division, 
Okinawa, Japan, 06/1970 to 05/1971.
    Student, Supply Officer School, Camp Lejeune, NC, 03/1970 to 05/
1970.
    Student, The Basic School, Quantico, VA, 10/1969 to 03/1970.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Board of Director, Seminars International, Inc.
    Member, Board of Director, Marine Corps Heritage Foundation
    Trustee, Spalding University
    Parliamentarian and Chair of Membership Committee, South Carolina 
State University Foundation
    Limited Partner, New Horizons Investments (LLC)

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member, Kappa Alpha Psi Fraternity
    Life Member, South Carolina State University Alumni Association
    President, Men's Club, Grace Baptist Church of Germantown
    Member, Board of Deacons, Grace Baptist Church of Germantown
    Life Member, National Naval Officers Association
    Life Member, White House Fellows Foundation and Association
    President/Board Chair, Pat McCormick Educational Foundation

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Not applicable.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Not applicable.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    6/21/2008--$100 contribution to Obama campaign
    3/23/2008--$500 contribution for Carlos Del Toro campaign
    3/09/2008--$100 contribution to Obama campaign
    3/03/2008--$50 contribution to Obama campaign
    Spouse made $50 contribution to Obama campaign some time before 
March 2008.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Honorary Doctor of Laws Degree from Spalding University
    Honorary Doctor of Laws Degree from South Carolina State University
    NAACP Meritorious Service Award
    NAACP Roy Wilkins Award
    Defense Distinguished Service Medal
    Legion of Merit Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (2 awards)
    Navy Commendation Medal
    Navy Achievement Medal
    Honor Graduate from Johns Hopkins University
    Honor Graduate Marine Corps Command and Staff College
    White House Fellow
    American Legion Award for inspirational leadership
    South Carolina State University Hall of Fame
    Clifford L. Stanley Park (named in my honor), Twentynine Palms, CA
    Department of the Navy Nathaniel Stinson EEO Award
    Order of the Sword (honor received from enlisted marines)
    Employee of the Year in Minneapolis/St. Paul Minnesota
    Scholarship America Scholarship created in my honor

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Doctoral Dissertation: The Importance of Character Development in 
American Colleges and Universities (2005).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Clifford L. Stanley.
    This 2nd day of November, 2009.

    [The nomination of Dr. Clifford L. Stanley was reported to 
the Senate by Chairman Levin on December 2, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 9, 2010.]
                              ----------                              

    [Prepared questions submitted to Erin C. Conaton by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater Nichols Act 
provisions?
    Answer. I believe strongly that Goldwater Nichols has had major and 
positive impacts on U.S. military operations and authorities. My view 
has been informed by my years at the House Armed Services Committee in 
oversight of this law and its implications for the current force. At 
this time I am not aware of any reason to amend the Goldwater-Nichols 
Act. If I am confirmed, I will be mindful of the need to periodically 
review organizational and management frameworks to ensure their 
continued validity and consistency with the provisions of Goldwater-
Nichols.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If I identify areas that I believe merit changes, I will 
propose those changes through the appropriate established process.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. If confirmed, I will bring over a decade of broad 
experience in national security policy and programs to this position. 
In my experience on the House Armed Services Committee since 2001, I 
have been involved in shaping legislation and conducting oversight of 
the choices and challenges facing our military since September 11 and 
through the wars in Iraq and Afghanistan, including the issues facing 
the U.S. Air Force. I have worked closely with the Military Services, 
the national security interagency community, and a variety of oversight 
committees in Congress. I have also helped the chairman and members of 
the House Armed Services Committee to grapple with tough fiscally-
constrained trade-offs among programs and to consider the implications 
of changes in defense law and policy. Finally, I bring the experience 
of managing a highly experienced, professional staff in support of the 
members of the committee and the U.S. military. I believe I could use 
these skills and my experience to benefit the Air Force and the broader 
Department of Defense (DOD) if I am confirmed.
                                 duties
    Question. Section 8015 of title 10, U.S.C., states the Under 
Secretary of the Air Force shall perform such duties and exercise such 
powers as the Secretary of the Air Force may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Air Force?
    Answer. The position of the Under Secretary of the Air Force is 
established by law within the Office of the Secretary of the Air Force. 
Subject to the Secretary of the Air Force's direction and control, the 
Under Secretary exercises the full authority of the Secretary to 
conduct the affairs of the Department of the Air Force (except as 
limited by law, regulation, or limitations imposed by DOD or the 
Secretary of the Air Force). The Under Secretary also serves as the 
Chief Management Officer (CMO) of the Air Force pursuant to section 904 
of the National Defense Authorization Act (NDAA) for Fiscal Year 2008, 
and, if designated by the Secretary of the Air Force, as DOD Executive 
Agent for Space.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Air Force, as 
set forth in section 3015 of title 10, U.S.C., or in DOD regulations 
pertaining to functions of the Under Secretary of the Air Force?
    Answer. At this time, I am unaware of any reason to change the 
duties and functions of the Under Secretary as set out in title 10 and 
pertinent DOD regulations. If I am confirmed and I identify areas that 
I believe merit changes, I will propose those changes through the 
appropriate established processes.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. If confirmed, I look forward to working with the Secretary 
of the Air Force to further understand his vision and how I can best 
support him and his goals for the Air Force. I expect the Secretary to 
prescribe for me duties relating to the Under Secretary of the Air 
Force's responsibilities, particularly in the role of CMO.
    Question. Section 904(b) of the NDAA for Fiscal Year 2008, directs 
the Secretary of a military department to designate the Under Secretary 
of such military department to have the primary management 
responsibility for business operations. Previously the Under Secretary 
of the Air Force had special responsibilities for space programs 
including the acquisition responsibility for space programs.
    Answer. If confirmed, will you be responsible for acquisition of 
Air Force space programs in addition to the business operations 
responsibilities?
    Currently the organization and management of space issues within 
the Air Force headquarters is under internal review, as well as through 
the Quadrennial Defense Review and Space Posture Review processes. 
These reviews and studies will inform and assist the Air Force in 
developing the way ahead, to include lines of authority and 
organizational structures. If confirmed, I would expect to be a major 
participant in these ongoing processes and would look forward to 
working with this committee to understand any new organizational 
construct or responsibilities that result from these reviews.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all matters 
within DOD. The Secretary of the Air Force is subject to the authority, 
direction and control of the Secretary of Defense, and the Under 
Secretary of the Air Force works for the Secretary of the Air Force. 
From 2002-2007, the Secretary of the Air Force designated the Under 
Secretary of the Air Force to perform the duties of the DOD Executive 
Agent for Space. In this role, the Under Secretary developed, 
coordinated, and integrated policy, plans, and programs for space 
systems and major defense space acquisitions. If confirmed and 
designated by the Secretary of the Air Force to perform the duties of 
the DOD Executive Agent for Space, I would look forward to working 
closely with the Secretary of Defense on space-related matters.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense assists the Secretary of 
Defense in carrying out his duties and responsibilities and performs 
those duties assigned by the Secretary of Defense or by law. If 
confirmed, I will work closely with the Deputy Secretary of Defense on 
a range of matters. In particular, I would look forward to working with 
and supporting the Deputy Secretary of Defense in his role as CMO of 
DOD.
    Question. The Deputy Chief Management Officer of DOD.
    Answer. The Deputy CMO of DOD is the senior official responsible 
for assisting the Secretary of Defense and the Deputy Secretary of 
Defense, acting as the CMO, to effectively and efficiently organize the 
business operations of DOD. The Office of the Deputy CMO supervises and 
oversees the Defense Business Transformation Agency and the DOD 
Performance Improvement Officer. If confirmed, I would look forward to 
developing an effective working relationship with the Deputy CMO, 
particularly in my capacity as the Air Force CMO.
    Question. The Director of the Business Transformation Agency.
    Answer. The Director of the Business Transformation Agency heads an 
organization which is responsible for guiding the Department's business 
operations modernization. The Director reports to the Deputy Under 
Secretary of Defense for Business Transformation (AT&L). The Business 
Transformation Agency fosters transformational business operations in 
order to support American warfighters and seeks to provide 
accountability by systematically improving business processes, 
enterprise resource planning systems and investment governance. If 
confirmed, I anticipate working very closely with the Director of the 
Business Transformation Agency on matters affecting the Air Force, 
pursuant to section 908 of the NDAA for Fiscal Year 2009 and other 
applicable laws.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Staff of the Air Force on appropriate 
matters affecting the Air Force.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory authorities and 
obligations of the other members of the Joint Chiefs of Staff. If 
confirmed, I will work closely with the Vice Chairman through the Chief 
of Staff of the Air Force on appropriate matters affecting the Air 
Force.
    Question. The Secretary of the Air Force.
    Answer. Subject to the authority, direction and control of the 
Secretary of Defense, the Secretary of the Air Force is responsible for 
and has the authority necessary to conduct all affairs of the 
Department of the Air Force. The Under Secretary of the Air Force is 
subject to the authority, direction and control of the Secretary of the 
Air Force. If confirmed, I expect to be assigned a wide range of duties 
and responsibilities by the Secretary involving, but not limited to, 
organizing, supplying, equipping, training, maintaining, and 
administering the Air Force. I look forward to working closely with the 
Secretary as his deputy and principal assistant.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force is subject to the 
authority, direction and control of the Secretary of the Air Force, 
presides over the Air Staff, and is a principal advisor to the 
Secretary. In addition, he is a military adviser to the President, the 
National Security Council, and the Secretary of Defense. If confirmed, 
I would foster a close working relationship with the Chief of Staff to 
ensure that policies and resources are appropriate to meet the needs of 
the Air Force and respect his additional responsibilities as a member 
of the Joint Chiefs of Staff.
    Question. The assistant Secretaries of the Air Force.
    Answer. If confirmed, I will assist the Secretary in building a 
close relationship with the assistant Secretaries of the Air Force to 
carry out the goals and priorities of the Department. I understand the 
importance of teamwork and information sharing and will make this a top 
priority. If confirmed, I look forward to working with the assistant 
Secretaries to further the Secretary's vision for the Air Force.
    Question. The General Counsel of the Air Force.
    Answer. As the Chief Legal Officer of the Air Force, the General 
Counsel of the Air Force is the senior civilian legal advisor to Air 
Force senior leaders and all officers and agencies of the Department of 
the Air Force. If confirmed, I would look forward to developing a good 
working relationship with the General Counsel.
    Question. The Inspector General of the Air Force.
    Answer. The Inspector General of the Air Force is a general officer 
who is detailed to the position by the Secretary of the Air Force. When 
directed, the Inspector General inquires into and reports on matters 
affecting the discipline, efficiency and economy of the Air Force. He 
also proposes programs of inspections and investigations as 
appropriate. If confirmed, I would look forward to developing a good 
working relationship with the Inspector General.
    Question. The Surgeon General of the Air Force.
    Answer. The Surgeon General of the Air Force is the functional 
manager of the Air Force Medical Service and provides direction, 
guidance and technical management of Air Force medical personnel at 
facilities worldwide. The Surgeon General advises the Secretary of the 
Air Force and Air Force Chief of Staff, as well as the assistant 
Secretary of Defense for Health Affairs, on matters pertaining to the 
medical aspects of the air expeditionary force and the health of Air 
Force personnel. If confirmed, I would look forward to developing a 
good working relationship with the Surgeon General.
    Question. The Air Force Business Transformation Office.
    Answer. The Air Force Business Transformation Office is responsible 
for assisting the Under Secretary of the Air Force in performing the 
duties of Air Force CMO as they relate to improving the effectiveness 
and efficiency of Air Force business operations. The Air Force Deputy 
CMO has been designated as the Director of the Air Force Business 
Transformation Office. The office advises Air Force senior leadership 
on establishment of strategic performance goals, management of Air 
Force-wide cross functional activities to meet those goals and 
implementation of continuous process improvement initiatives. If 
confirmed, I anticipate a very active and involved role with the Air 
Force Business Transformation Office on matters affecting the Air 
Force-wide business operations.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General of the Air Force is the senior 
uniformed legal advisor to Air Force senior leaders and all officers 
and agencies of the Department of the Air Force and provides 
professional supervision over The Judge Advocate General's Corps in the 
performance of their duties. If confirmed, I would look forward to 
developing a good working relationship with The Judge Advocate General.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is the senior 
uniformed National Guard officer responsible for formulating, 
developing, and coordinating all policies, programs, and plans 
affecting Army and Air National Guard personnel. Appointed by the 
President, he serves as principal adviser to the Secretary of Defense 
through the Chairman of the Joint Chiefs of Staff on National Guard 
matters. He is also the principal adviser to the Secretary and Chief of 
Staff of the Air Force on all National Guard issues and serves as the 
department's official channel of communication with the Governors and 
Adjutants General. If confirmed, I will look forward to developing a 
good working relationship with the Chief of the National Guard Bureau 
on appropriate matters affecting the Air Force.
    Question. The Under Secretaries of the Military Services.
    Answer. If I am confirmed, I will work diligently to foster a close 
working relationship with the Under Secretaries of the Army and Navy. I 
look forward to sharing information and expertise that will assist in 
the management of the Department of the Air Force and our coordination 
with the other Services on matters of mutual interest, particularly in 
our capacities as CMOs for our respective Services.
                    major challenges and priorities
    Question. In your view, what are the major challenges, if any, that 
you would confront if confirmed as Under Secretary of the Air Force?
    Answer. This is a time of great challenges, for DOD generally and 
for the Air Force in particular. Current strategic reviews, ranging 
from the QDR to the Nuclear and Space Posture Reviews, will reassess 
the strategic environment within which the military is operating, 
presumably with attendant implications for the missions, force 
structure, and operations of the joint force. The Air Force has come 
through a period of challenge with regards to its nuclear enterprise 
and its acquisition processes. The Service also must contend with 
balancing the need to support the joint warfighter in the current 
conflict while ensuring we can prevail in the next fight, whatever that 
may be. There is a need to balance modernization of current platforms 
and to continue to invest in new capabilities that will be needed in 
future conflicts. The Air Force must also ensure that it can continue 
to recruit, train, deploy, and retain highly-skilled airmen and to 
support those airmen and their families. At a time of great fiscal 
challenge for our Nation, these challenges will continue to pose hard 
choices for the Service in its overall budget, particularly in the 
investment accounts.
    If confirmed, I look forward to understanding these challenges more 
clearly and to working closely with DOD and Air Force leadership, along 
with this committee, to develop strategies for addressing the major 
challenges facing the Air Force.
    Question. If confirmed, how would you prioritize and what plans 
would you have, if any, for addressing these challenges?
    Answer. In my view, the Secretary and Chief of Staff have laid out 
clear priorities--reinvigorating the nuclear enterprise; partnering 
with the joint and coalition team to win today's fight; developing and 
caring for airmen and their families; modernizing air and space 
inventories, organizations, and training; and recapturing acquisition 
excellence. Since the Secretary and Chief were confirmed last year, the 
Air Force has made much progress. If confirmed, I look forward to 
working with senior DOD and Air Force leadership--as well as this 
committee--to ensure continued progress is made. All of these 
priorities will require sustained leadership and effort with an eye 
toward ensuring the best support for the warfighter and the wise use of 
taxpayer resources.
                     management of space activities
    Question. The Under Secretary of the Air Force is traditionally 
designated as the DOD Executive Agent for Space. In this role, the 
Under Secretary develops, coordinates, and integrates policy, plans and 
programs for space systems and major defense space acquisitions.
    Will you be designated as the DOD Executive Agent for Space?
    Answer. If confirmed, I will be assigned a wide range of duties and 
responsibilities subject to the authority, direction and control of the 
Secretary of the Air Force. Recently, the Under Secretary of the Air 
Force has also served as the DOD Executive Agent for Space. The roles 
and responsibilities for the Air Force in space policy and programs are 
currently under review both by DOD and the Air Force. Based on that 
review, I expect the Secretary of the Air Force to make a judgment 
about the best organizational construct for accomplishing the Air 
Force's space mission. I anticipate being an active participant in 
those deliberations and to serving in whatever capacity for space 
policy and programs that the Secretary finds most appropriate and 
beneficial to the Air Force. Beyond this specific area, I look forward 
to working as the Secretary's deputy and principal assistant across the 
range of his responsibilities.
    Question. As the DOD Executive Agent for Space, how will you ensure 
that each of the Military Services remains fully engaged in and 
knowledgeable about space programs and the advantages that such 
programs can bring to the warfighter?
    Answer. If confirmed and designated by the Secretary of the Air 
Force as the DOD Executive Agent for Space, I would foster a close 
working relationship with the Under Secretaries of the Army and Navy, 
as well as the appropriate Under and Assistant Secretaries of Defense 
and the Defense Advanced Research Projects Agency, to ensure space 
acquisition planning, programming and budgeting are synchronized to 
continue to deliver the best space capability to the warfighter.
    Question. What is your view of the relationship of the Under 
Secretary of the Air Force, as the Executive Agent for Space, to the 
Under Secretary of Defense for Policy, and the assistant Secretary of 
Defense for Networks and Information Integration with regard to space 
policy and systems?
    Answer. If confirmed and designated by the Secretary of the Air 
Force as DOD Executive Agent for Space, I would work collaboratively 
with both these individuals and their organizations to shape space 
policy to maintain continuity of existing space services while 
improving how the department acquires new space systems. The Executive 
Agent for Space responsibilities can most successfully be accomplished 
with close coordination with these organizations for the development of 
space policy and the integration of space systems into broader 
departmental efforts.
    Question. In your view, what are the authorities of the Executive 
Agent for Space regarding: (1) the budgets, programs, and plans of the 
various Service and Defense Agency space programs; and (2) milestone 
decisions for space acquisition programs of the various Services and 
Defense Agencies?
    Answer. With respect to planning, budgeting, and programming, I 
view the authorities of the DOD Executive Agent for Space as an 
integration function across the entire department and space 
communities. If confirmed, I view the synchronization of space budgets 
between the Services and the coordination of space and non-space 
acquisitions as paramount to delivering fully integrated weapon systems 
to the battlefield. If designated by the Secretary of the Air Force as 
the Executive Agent for Space, I would communicate our progress 
annually in the National Security Space Plan, which is an assessment of 
space plans and architectures of the DOD Components developed in 
coordination with several other Federal agencies.
    Currently, the Under Secretary of Defense for Acquisition, 
Technology and Logistics has milestone decision authority for space 
acquisition programs. If confirmed, I look forward to assisting the 
Under Secretary in managing and delivering space capabilities to the 
warfighter.
                     operationally responsive space
    Question. Congress established an Office for Operationally 
Responsive Space (ORS) to explore the concept of providing military 
commanders the capability to rapidly launch rockets with small 
satellites designed to support a specific area of operations with 
communications and other sensors and to reconstitute space based 
capabilities if lost.
    What is your view of the goals and current capabilities of ORS and 
the status of efforts to develop and acquire small satellite 
capability?
    Answer. While I am familiar with the congressional goals of ORS, if 
confirmed, I will need to familiarize myself more deeply to evaluate 
the current status and progress the ORS Office has made toward these 
goals. The Nation continues to need the ability to rapidly reconstitute 
and augment warfighters' space capabilities with solutions that can be 
delivered in operationally relevant timelines. If confirmed and 
appropriate to the responsibilities assigned to me by the Secretary, I 
will work closely with the other Services, members of the Intelligence 
Community, and the larger space enterprise to develop a responsive 
space capability to address emerging needs of our Theater Commanders.
                              space launch
    Question. On May 2, 2005, Boeing and Lockheed Martin announced 
plans to merge the production, engineering, test, and launch operations 
associated with providing Evolved Expendable Launch Vehicle (EELV) 
services to the U.S. Government. The companies believed the merger 
could save $100-150 million per year for the U.S. Government while 
continuing to provide assured access to space.
    Answer. These cost savings have not yet materialized and it appears 
as if the cost of an individual launch is in fact increasing.
    Question. If confirmed how would you ensure that this merger does 
in fact result in cost savings to the U.S. Government?
    Answer. It is my understanding that, per congressional direction, 
the OSD Cost Analysis and Program Evaluation office is conducting a 
validation of the savings brought about by the merger. The Air Force is 
supporting this effort, and is partnering with industry as the 
consolidation of workforce and facilities proceeds. If confirmed, I 
would plan to become more familiar with these efforts to evaluate the 
actual cost savings and other benefits of the merger.
    Question. Maintaining assured access to launch has been the 
national security goal of the Air Force. In your view is that goal 
achieved with the EELV vehicles or is there a need for alternative 
launch options?
    Answer. I firmly believe in the continued national security need 
for assured launch access. It is my understanding that by maintaining 
the Atlas V and Delta IV families of launch vehicles, the EELV program 
achieves assured access to space as laid out in the administration's 
current Space Transportation Policy (NSPD-40). If confirmed and 
consistent with the duties assigned to me by the Secretary, I plan to 
develop a more informed answer to this question and to understand more 
fully the committee's concerns on this issue.
    Question. The increasing pace of space launches has stressed the 
launch processing capability of the ranges. What in your view is needed 
to increase the launch throughput at the east and west coast ranges?
    Answer. I am not yet informed enough on this specific question to 
give a complete answer. If confirmed and consistent with the duties 
assigned to me by the Secretary, I plan to develop a more informed 
answer to this question and to understand more fully the committee's 
concerns on this issue.
                   military space acquisition policy
    Question. The present generation of military space systems are 
being modernized in virtually every mission area, including: (1) 
strategic missile warning; (2) assured communications; (3) navigation; 
and (4) intelligence and surveillance. At the same time, virtually 
every one of these modernization programs has suffered substantial 
problems with regard to cost, schedule, and technical performance. As a 
result of the budgetary pressure on future space programs, the most 
recent space acquisition programs, the Space Radar and Transformational 
Satellite programs were cancelled.
    In your view what are the key execution problems that have caused 
the schedule delays and budgetary increases in space development 
programs?
    Answer. Over the past decade and a half the Air Force has attempted 
to adapt to the changing landscape of the industrial base, the force 
structure, and the increasing requirement needs of the warfighter--
resulting in increased complexity and the pursuit, in several cases, of 
not yet mature technologies. I think the Air Force needs to focus on 
stabilizing requirements, ensuring technical maturity, instilling 
fiscal discipline and on improving and increasing the acquisition 
workforce.
    Question. If confirmed, what steps would you take to correct 
problems in the space acquisition process?
    Answer. It is my view that the Air Force needs to focus on 
increasing the size and capabilities of the acquisition workforce, 
stabilizing requirements, and instilling fiscal discipline. If 
confirmed, I will work with Air Force and DOD leadership and this 
committee to ensure the Air Force acquisition process is held to the 
highest standards and executed with professionalism and integrity, and 
in the best interest of the taxpayer.
          next generation military communications capabilities
    Question. The demand for military communications capabilities 
continues to grow at a rapid pace.
    With the cancellation of the Transformational Satellite 
Communications System (TSAT) program what are your thoughts on how the 
Air Force can meet the growing demand for communications and increased 
bandwidth requirements?
    Answer. With the cancellation of the TSAT, there is a need to 
maintain the Advanced Extremely High Frequency for protected 
communications and Wideband Global Satellite Communications systems for 
wideband communications to ensure continuity of service to our 
warfighters. If confirmed and consistent with the duties assigned to me 
by the Secretary, I will familiarize myself more deeply with the 
details of these programs, looking for ways to leverage the significant 
technology investment with TSAT and for opportunities to field some of 
those capability advances into other systems.
                       aircraft recapitalization
    Question. If confirmed, what role would you plan in efforts to 
recapitalize the Air Force aircraft inventory and how would you 
prioritize the recapitalization effort?
    Answer. If confirmed, my role in the recapitalization would be to 
support the ongoing efforts of the Secretary and Chief of Staff. One of 
the Air Force's five priorities is to ``modernize our aging air and 
space inventories.'' To accomplish this effort, I would continue to 
focus on the Air Force's top procurement priorities included in the 
fiscal year 2010 presidential budget request: specifically, the KC-X 
tanker program, the Joint Strike Fighter (F-35), the MQ-9 Reaper, and 
space programs working closely with the Air Force and OSD senior 
leadership.
                           long-range bombers
    Question. The B-1s, B-2s, and B-52s will begin to be retired in the 
2030 timeframe.
    Do you believe that the United States needs to develop a new manned 
bomber?
    Answer. I believe that the Air Force must ensure that it can 
continue to provide long-range persistent strike capabilities to the 
President in his role as Commander in Chief. Given the anticipated life 
expectancy of the current force, now is an appropriate time for DOD and 
the Air Force to consider what options are available to continue to 
provide such capability. The bomber force provides a broad-based set of 
options across the spectrum of national security challenges: from the 
assurance they provide to our regional allies, to their deterrent 
effect on potential adversaries, through the full spectrum of 
conventional warfare, and as a critical component of our Nation's 
nuclear triad.
    Question. It is my understanding that options for a future long-
range persistent strike aircraft--whether manned or unmanned--are under 
consideration in the context of the Quadrennial Defense Review. If 
confirmed, I look forward to working with the senior DOD and Air Force 
leadership on the consideration of these options.
    What role do you see for unmanned bombers?
    Answer. This is a critical question confronting DOD and the Air 
Force. While I am familiar with some of the debate on this issue from 
my role to date on a congressional oversight committee, I would look 
forward, if confirmed, to understanding better the considerations and 
challenges for the Air Force, including the benefits and military 
utility of ``the man or woman in the cockpit'' for the future bomber 
force.
    More generally, we have enjoyed great success in the current fights 
with unmanned aerial systems (UASs) in the mission sets of 
intelligence/surveillance/reconnaissance and light attack in permissive 
environments where we are unchallenged in the air, space, and cyber 
domains. If confirmed, I will continue the Air Force's development of 
UASs and the UAS roadmap to ensure we expand UAS mission areas 
commensurate with industry's ability to develop reliable, effective 
systems that support the needs of the combatant commanders.
    Question. When, in your view, must a decision on this issue be 
made?
    Answer. I think our first step on a decision should be made as an 
outcome of the ongoing Quadrennial Defense Review and Nuclear Posture 
Review, as Secretary Gates has stated. If confirmed, I will work 
closely with Secretary Donley to ensure the Air Force provides its best 
analysis of the current and projected state of global power 
capabilities and its best options to the Secretary of Defense.
                          prompt global strike
    Question. What, in your view, is the definition of prompt global 
strike?
    Answer. It is my view that Prompt Global Strike is the capability 
to provide rapid, precise conventional strikes for anti-access and high 
value targets anywhere in the world. Prompt Global Strike enables the 
United States to deter and/or strike global targets conventionally with 
timeframes reduced from days to hours.
    Question. What steps do you believe are needed to achieve the goal 
of prompt global strike?
    Answer. My current view is that there are several steps needed to 
achieve the goal of prompt global strike. First, we need to have a high 
fidelity intelligence, surveillance, and reconnaissance. Next, we must 
have a robust command and control network that enables rapid 
decisionmaking and that provides safeguards to assure other nations of 
our intent. Finally, we need the capability to provide rapid, precise 
global strike even in the absence of forward presence. If confirmed, I 
would look at this area in more depth to familiarize myself with the 
Air Force's current thinking and plans.
        duties and responsibilities as chief management officer
    Question. Section 904 of the NDAA for Fiscal Year 2008 designates 
the Under Secretary of the Air Force as the Air Force's CMO. Section 
908 of the NDAA for Fiscal Year 2009 requires the CMO of each of the 
military departments to carry out a comprehensive business 
transformation initiative, with the support of a new Business 
Transformation Office.
    What is your understanding of the duties and responsibilities of 
the Under Secretary as the CMO of the Department of the Air Force?
    Answer. It is my understanding that the responsibilities of the 
CMO, consistent with section 904 of the NDAA for Fiscal Year 2008, 
include the following: ensuring the Air Force's capability to carry out 
DOD's strategic plan in support of national security objectives; 
ensuring the core business missions of the Department of the Air Force 
are optimally aligned to support the Department's warfighting mission; 
establishing performance goals and measures for improving and 
evaluating overall economy, efficiency, and effectiveness and 
monitoring and measuring this progress; and working with DOD's CMO to 
develop and maintain a strategic plan for business reform. Under 
section 908 of the NDAA for Fiscal Year 2009, the CMO is also 
responsible for carrying out an initiative for business transformation 
for the Air Force. If confirmed, I will ensure the core function and 
missions of the Air Force are optimally aligned to support the joint 
warfighting mission. I intend to fulfill the requirements of the law by 
establishing performance goals and measures for improving and 
evaluating the overall economy, efficiency, and effectiveness of Air 
Force programs.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. During my time as Staff Director of the House Armed 
Services Committee, I was involved in the hearings and deliberations 
that resulted in the NDAAs for Fiscal Year 2008 and Fiscal Year 2009. I 
believe that this background, along with my oversight of both 
acquisition policy and national military policy generally, will 
position me well to help improve Air Force business and mission 
transformation to support of COCOMs and joint/coalition partners. If 
confirmed, I would look forward to the challenge of helping the Air 
Force meet the intent of these important laws.
    Question. Do you believe that the CMO and the Business 
Transformation Office have the resources and authority needed to carry 
out the business transformation of the Department of the Air Force?
    Answer. While I have not yet had an opportunity to conduct an in-
depth review of these authorities, I have favorable first impressions. 
If, upon further analysis, I become convinced more resources are 
required to affect transformation, I would work closely with the 
Secretary to ensure the Air Force is applying sufficient effort to this 
important issue.
    Question. What role do you believe the CMO and the Business 
Transformation Office should play in the planning, development, and 
implementation of specific business systems by the military 
departments?
    Answer. Consistent with the laws that established them, the CMO and 
the Business Transformation Office should work with the Secretary and 
Chief to set transformation priorities aligned to DOD and Air Force 
needs. They should work to ensure business systems solutions make 
economic sense and are feasible; build on or replace existing systems; 
and enforce sound execution through application of the DOD 
certification process, pursuant to the NDAA for Fiscal Year 2005 and 
amplified in the NDAA for Fiscal Year 2010, that requires all business 
systems over $1 million in modernization cost be certified as meeting a 
mission need and supported by a business case.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO and creating the 
Business Transformation Office?
    Answer. I am not yet familiar enough with the functioning of the 
Air Force office to make recommendations at this time. If confirmed, I 
will continue to assess the requirement for additional or modified 
authorities and look forward to working with this committee to ensure 
that the objectives of the CMO, as intended by Congress, are met.
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes. The Department has chosen to implement 
the requirement for an enterprise architecture and transition plan 
through a ``federated'' approach in which the Business Transformation 
Agency has developed the top level architecture while leaving it to the 
military departments to fill in most of the detail. The Air Force's 
business systems, like those of the other military departments, remain 
incapable of providing timely, reliable financial data to support 
management decisions. In particular, the Government Accountability 
Office has reported that the Air Force has not yet followed DOD's lead 
in establishing new governance structures to address business 
transformation; has not yet developed comprehensive enterprise 
architecture and transition plan that plug into DOD's federated 
architecture in a manner that meets statutory requirements; and instead 
continues to rely upon old, stovepiped structures to implement 
piecemeal reforms.
    If confirmed, what steps, if any, would you take to ensure that the 
Air Force develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. If confirmed, I will work with the Air Force comptroller to 
ensure that Air Force funding execution is more visible in real time to 
senior leaders. While I have not yet been briefed in detail on the 
status and challenges for Air Force systems, I would work to ensure 
that our systems and processes achieve the outcome of enhancing our 
ability to manage funds; ensure a detailed schedule is put in place and 
managed to achieve that outcome; and ensure audits are conducted to 
validate performance.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Air Force's business systems?
    Answer. Yes, I do.
    Question. What steps would you take, if confirmed, to ensure that 
the Air Force's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. If confirmed, I will engage the business transformation 
staff in a detailed review of how the Air Force is developing and using 
its business enterprise architecture to manage transformation. I would 
make it a priority to meet very early on with the Deputy CMO and 
Business Transformation staff to validate the current state of the Air 
Force business enterprise architecture and its alignment to the DOD 
architecture. I would focus our review on how the architecture is being 
applied within the Air Force governance process, and would direct and 
implement any needed improvements.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. I think timely financial information is critical in 
managing the operations of large organizations. I understand the 
frustration of many at the difficulty in achieving audits of DOD 
financial statements and appreciate congressional efforts, through 
section 1003 of the NDAA for Fiscal Year 2010, to motivate the 
Department to move more expeditiously to producing auditable 
statements. If confirmed, I will be active in supporting the Secretary 
of the Air Force's continued focus on financial issues within the 
Department.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, I would use that situation as an opportunity 
to improve the process of providing such financial and business 
information. I would make this area a priority, especially if it aligns 
to the major strategic mission priorities of the organization, and 
assign actions with accountability for corrections. Finally, I would 
provide active follow-up to ensure the needed results were achieved.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Air Force managers?
    Answer. If confirmed, I will focus on establishing the priorities 
for business performance improvements on behalf of the Secretary of the 
Air Force and report on progress toward achieving these goals. As the 
CMO, I would expect to be an active and key member of the Air Force 
governance process, enforcing Department priorities in decisions 
regarding programs, organizations and processes across the functional 
staff and Air Force Major Commands.
                           acquisition issues
    Question. What are your views regarding the need to reform the 
process by which the Department of the Air Force acquires major weapons 
systems?
    Answer. Reforming the acquisition process for major weapons systems 
is a critical issue for the Air Force, as well as for DOD more broadly. 
I am familiar with some of the past challenges in this area, as well as 
many of the concerns that motivated Congressional action through the 
Weapons System Acquisition Reform Act of 2009. My initial impression is 
that the Air Force has taken focused actions to reform its acquisition 
processes and is continuing to work to make further improvements. If 
confirmed, I would expect to learn more about the challenges facing Air 
Force acquisition and to help the leadership team take further steps to 
keep requirements in check and improve cost, schedule, and performance 
measures.
    Question. What steps would you recommend to improve that process?
    Answer. If confirmed, I would continue the acquisition improvements 
begun by the Secretary of the Air Force and the Chief of Staff in May 
2009. As I understand it, these improvements seek to address the major 
acquisition improvement areas laid out in the Weapons Systems 
Acquisition Reform Act of 2009. Specifically, I believe the Air Force 
should continue to improve the size and training of the workforce; 
control requirements; create financial and budget stability in major 
defense programs; improving major source selection processes; and 
address clear lines of acquisition authority and accountability across 
the Air Force.
    Question. If confirmed, what role do you expect to play in the 
major defense acquisition programs of the Department of the Air Force?
    Answer. If confirmed, I will assist the Secretary of the Air Force 
in his goal of recapturing acquisition excellence. His initiative 
includes efforts to revitalize the Air Force acquisition workforce, 
improve the requirements generation process, instill budget and 
financial discipline, improve Air Force major systems source 
selections, and establish clear lines of authority and accountability 
within our acquisition organizations. I would look forward to helping 
the Secretary to achieve his acquisition goals in whatever capacity he 
believes I am best suited to serve.
    Question. Department-wide, nearly half of DOD's 95 largest 
acquisition programs have exceeded the so-called ``Nunn-McCurdy'' cost 
growth standards established in section 2433 of title 10, U.S.C. The 
cost overruns on these major defense acquisition programs now total 
$295 billion over the original program estimates, even though the 
Department has cut unit quantities and reduced performance expectations 
on many programs in an effort to hold costs down. Many of those 
programs are being executed by the Department of the Air Force.
    What steps, if any and if confirmed, would you take to address the 
out-of-control cost growth on the Department of the Air Force's major 
defense acquisition programs?
    Answer. I am in support of the principles that motivated the 
Weapons Acquisition Reform Act of 2009. I think that law lays out both 
the drivers of program challenges and the need to take very seriously 
any critical breaches of Nunn-McCurdy thresholds. As such and if 
confirmed, my analysis of the Air Force's acquisition programs would 
focus on the assumptions used in establishing program baselines. Such 
baselines must be based on realistic schedule and technical assumptions 
and accurate cost estimates. If confirmed, I will place an emphasis on 
realistic budgeting based on improved program cost estimates.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. The direction provided by Nunn-McCurdy and by the Weapon 
Systems Acquisition Reform Act of 2009 is essential in determining 
whether to terminate or continue a program that has experienced a 
critical cost growth. I agree with the new law that, when such breaches 
occur, we must understand what the root cause of that breach is. I 
further agree with the presumption for termination that must guide 
one's analysis and also the requirement that, if a program is 
restructured, it should be required to receive new milestone approval 
before proceeding. While there are programs that will be essential to 
national security, I believe the Department must undertake hard 
analysis in looking at the alternatives in such a case.
    Question. Many experts have acknowledged that DOD may have gone too 
far in reducing its acquisition work force, resulting in undermining of 
its ability to provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Department of the 
Air Force should take to address this problem?
    Answer. If confirmed, I will continue Air Force's efforts to 
increase the size of and improve the training of the acquisition 
workforce.
    Question. Section 852 of the NDAA for Fiscal Year 2008 establishes 
a Defense Acquisition Workforce Development Fund (DAWDF) to provide the 
resources needed to begin rebuilding the Department's corps of 
acquisition professionals.
    Do you believe that a properly sized workforce of appropriately 
trained acquisition professionals is essential if the Air Force is 
going to get good value for the expenditure of public resources?
    Answer. Yes.
    Question. What steps do you expect to take, if confirmed, to ensure 
that the Air Force makes appropriate use of the funds made available 
pursuant to the DAWDF?
    If confirmed, I will join the Service Acquisition Executives in 
monitoring and guiding the use of DAWDF against the Air Force plan and 
provide course corrections if Air Force needs dictate and as may be 
required by OSD direction, congressional guidance, and acquisition law.
    Question. Would you agree that shortened tours as program managers 
can lead to difficulties in acquisition programs? If so, what steps 
would you propose to take, if confirmed, to provide for stability in 
program management?
    Answer. Yes, I believe program management tenure is important to 
program stability. If confirmed, I will support the Air Force's 
commitment to add rigor in the management of tenure.
    Question. Major defense acquisition programs in the Department of 
the Air Force and the other Military Departments continue to be subject 
to funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes.
    Question. What steps, if any, do you believe the Air Force should 
take to address funding and requirements instability?
    Answer. Emphasis needs to be placed on realistic budgeting based on 
improved program cost estimates. In my view, there is a need to 
stabilize program funding and to improve the requirements generation 
process to minimize changes during the weapons system's development 
process. If confirmed, I look forward to understanding the Air Force's 
existing situation in more depth and to identifying any additional 
steps that should be taken.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Department of the 
Air Force should take to address these problems?
    Answer. I believe the acquisition reform steps recently put in 
place by Congress, OSD, and the Air Force will have a beneficial impact 
toward improving the acquisition process. It is critical to continue 
the revitalization of the Air Force acquisition workforce, improve the 
requirements generation process, instill budget and financial 
discipline, improve Air Force major systems source selections, and 
establish clear lines of authority and accountability within 
acquisition organizations. The Weapon Systems Acquisition Reform Act 
and regulations require preliminary design review prior to engineering 
and manufacturing development, giving more credibility to program cost 
baselines.
    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Air Force should take to 
improve the staffing, training, and management of its acquisition of 
services?
    Answer. It is my understanding the Air Force has implemented a 
multi-functional team approach to services acquisition both pre- and 
post-award; engaged general officers and senior executive leaders in 
oversight and management in each major command across the Air Force; 
and developed training courses now run out of the Defense Acquisition 
University (DAU). If confirmed, I will seek to become more 
knowledgeable about ongoing Air Force initiatives.
    Question. Do you agree that the Air Force should develop processes 
and systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. I agree the Air Force needs such processes and systems and 
that they should be consistent with Defense Department expectations. As 
of yet, there is not a single system across DOD that has this 
capability. Having clear OSD expectations would be critical in the 
development of such a system. In the interim, it is my understanding 
that the Air Force is using existing data systems such as Federal 
Procurement Data System-Next Generation and Contract Business 
Information System. If confirmed, I will work with DOD to encourage 
development of consistent expectations across DOD.
    Question. Recent congressional and DOD initiatives have attempted 
to reduce technical and performance risks associated with developing 
and producing major defense acquisition programs, including ships, so 
as to minimize the need for cost-reimbursable contracts.
    Do you think that the Air Force should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. I believe that fixed price-type contracting should be used 
to the greatest degree appropriate. However, each contract has to be 
evaluated on a case by case basis to determine the appropriateness of 
this contact type. Its use would be appropriate when technologies are 
mature enough to enable accurate cost and schedule estimates by the 
industry offerors competing for a contract. The use of a fixed-price 
type contract, where appropriate, permits an equitable and sensible 
allocation of program risk between the Government and the contractor. I 
will certainly keep this consideration in mind, if confirmed, in 
considering options for future contracts. This recent focus on 
increased use of fixed price and fixed price incentive contract types 
is consistent with recent USD(AT&L) emphasis in this area.
    Question. Section 811 of the NDAA for Fiscal Year 2008 amended 
section 2306b of title 10, U.S.C. to ensure that DOD enters multiyear 
contracts only in cases where stable design and stable requirements 
reduce risk, and only in cases where substantial savings are expected. 
The statement of managers accompanying the conference report addressed 
the requirements for buying major defense systems under multiyear 
contracts as follows: ``The conferees agree that `substantial savings' 
under section 2306b(a)(1) of title 10, U.S.C., means savings that 
exceed 10 percent of the total costs of carrying out the program 
through annual contracts, except that multiyear contracts for major 
systems providing savings estimated at less than 10 percent should only 
be considered if the Department presents an exceptionally strong case 
that the proposal meets the other requirements of section 2306b(a), as 
amended. The conferees agree with a Government Accountability Office 
finding that any major system that is at the end of its production line 
is unlikely to meet these standards and therefore would be a poor 
candidate for a multiyear procurement contract.''
    Answer. If confirmed, will you ensure that the Air Force fully 
complies with the requirements of section 2306b of title 10, U.S.C., as 
amended by section 811 of the NDAA for Fiscal Year 2008 (Public Law 
110-181) with respect to programs that are forwarded for authorization 
under a multiyear procurement contract?
    Answer. Yes.
    Question. If confirmed, under what circumstances, if any, do you 
anticipate that you would support a multiyear contract with expected 
savings of less than 10 percent?
    Answer. In my opinion, 10 percent savings is a reasonable target 
for the ``substantial savings'' threshold. Based on what I know at this 
point, there is no specific Air Force program that I am aware of that 
would justify a multiyear contract with projected savings of less than 
10 percent. Approval of multiyear procurement authority has 
historically depended on the ability to obtain significant savings, a 
sufficiently stable weapon system design, an adequately validated 
requirement, and a commitment to stable funding over the life of the 
contract.
    Question. If confirmed, under what circumstances, if any, would you 
support a multiyear contract for a major system at the end of its 
production line?
    Answer. I am aware of the statement of manager's language that 
accompanied section 811 in the NDAA for Fiscal Year 2008. This language 
endorsed the finding of the Government Accountability Office ``that any 
major system that is at the end of its production line is unlikely to 
meet these standards and therefore would be a poor candidate for a 
multiyear procurement contract.'' I agree with this conclusion. There 
are no specific circumstances I can imagine at this point that would 
argue for an exception to this general argument against the use of a 
multiyear contract at the end of a production line.
    Question. What is your understanding of the new requirements 
regarding the timing of any Air Force request for legislative 
authorization of a multiyear procurement contract for a particular 
program?
    Answer. My understanding is that by no later than 1 March of the 
year in which the Secretary requests legislative authority to enter 
into a multiyear contract for a particular program, the Secretary must 
determine that each of the requirements laid out in section 811 of the 
NDAA for Fiscal Year 2008 have been met by the contract and provide the 
basis for such determination to the congressional defense committees.
                    air force science and technology
    Question. What do you see as the role that Air Force science and 
technology programs will play in continuing to develop capabilities for 
current and future Air Force systems?
    Answer. If confirmed, this is an area on which I would need to 
increase my familiarity, but I see the goal of Air Force science and 
technology programs continuing to be support of the warfighter with 
superior systems. I would expect the Air Force Science and Technology 
program to continue to focus on the Air Force strategic priorities--
winning today's fight, modernizing our air and space inventories, and 
recapturing acquisition excellence.
    Question. What in your view have been the greatest contributions of 
Air Force science and technology programs to current operations?
    Answer. One of the enduring strengths of the Air Force has been the 
continual stream of advanced technologies and capabilities that have 
flowed out of the laboratory and gone into the development centers and 
Programs of Record with eventual transition to the warfighter. For 
example, the contributions of the Global Positioning System, smart 
weapons, and new technologies to help identify battlefield targets have 
had a profound impact on current operations.
    Question. What metrics would you use, if confirmed, to judge the 
value and the investment level in Air Force science and technology 
programs?
    Answer. Based on my current knowledge and without a deep 
understanding of the Air Force's efforts in this area, I believe the 
ultimate metric is to assess what has been transitioned into 
operational use. If confirmed, I will be guided by Air Force strategic 
priorities--to win today's fight, modernize our air and space 
inventories, and recapture acquisition excellence, and specifically, 
the goal to bolster intelligence, surveillance and reconnaissance, 
cyber and advanced conventional weapons support to the joint 
warfighter.
   air force laboratories and research, development and engineering 
                                centers
    Question. What role should Air Force laboratories play in 
supporting current operations and in developing new capabilities to 
support Air Force missions?
    It is my view that the Air Force science and technology program--
including the labs--should continue to develop and transition 
innovative and relevant technologies; build and nurture a technically 
skilled, highly educated and adaptive workforce able to provide 
effective solutions for today's issues; and conduct innovative research 
to maintain our technological edge over potential adversaries.
    If confirmed, how will you ensure that the Air Force laboratories 
and research and development centers have the highest quality 
workforce, laboratory infrastructure, resources, and management, so 
that they can continue to support deployed warfighters and develop next 
generation capabilities?
    Answer. If confirmed, I will spend time educating myself on the 
details of the Air Force's current initiatives in this area. The 
quality of the workforce is a critical consideration. In that regard, I 
would expect to work closely with the Air Force leadership to ensure 
the service is taking full advantage of the expedited hiring 
authorities to rebuild the workforce with the highest quality talent 
available and appropriately using all authorities for training these 
individuals. I will rely on and support the senior leadership of the 
acquisition community to assess and invest in infrastructure, including 
workforce, research facilities and funds necessary to support the 
future technology needs of the Air Force. It is my understanding that 
the results of the assessment of laboratory health and infrastructure 
required by the NDAA for Fiscal Year 2010 will form the basis for 
decisions on required infrastructure investments.
    Question. Do you support the full utilization of authorities 
established by Congress under the Laboratory Personnel Demonstration 
program that is currently being run in many Air Force Research, 
Development, and Engineering Centers (RDECs)?
    Answer. I fully support the intent behind the Lab Demo program--to 
improve recruitment and retention of high-quality employees and to 
shape the laboratory work force into a more flexible structure that can 
effectively respond to rapid changes in the technology market place. If 
confirmed, I will work with the laboratory leadership to monitor the 
Lab Demo program to ensure it remains effective for its primary purpose 
and propose changes to the program as they become required.
    Question. Do you believe that all RDECs in the Air Force's 
Research, Development, and Engineering Command (RDECOM) need enhanced 
personnel authorities in order to attract and retain the finest 
technical workforce? Would you support expansion of the Laboratory 
Personnel Demonstration authorities to all of RDECOM's laboratories and 
engineering centers?
    Answer. Yes, I believe the Lab Demo project has helped the Air 
Force recruiting and retention of highly qualified scientists and 
engineers. I don't yet have sufficient knowledge of the implications of 
expanding the program, but if confirmed, I look forward to being 
briefed in greater detail on potential expansion.
    Do you believe that the Air Force's laboratories and engineering 
centers should have a separate, dynamic personnel system, uniquely 
tailored to support laboratory directors' requirements to attract and 
retain the highest quality scientific and engineering talent?
    Answer. If confirmed, I look forward to learning more about and 
addressing this issue, looking carefully at the Air Force's experience 
with the Lab Demo program.
    Question. How will you assess the quality of Air Force laboratory 
infrastructure and the adequacy of investments being made in new 
military construction and sustainment of that infrastructure?
    Answer. I am aware that a provision in the NDAA for Fiscal Year 
2010 directs the Secretary of Defense to report to Congress on the 
health of the Department's laboratory infrastructure. A Joint 
Assessment team, including representatives from the Air Force, has been 
formed to collect data and perform the analysis as required by the act. 
If confirmed, I will work closely with the leadership of the 
acquisition community to ensure that the Air Force Research Laboratory 
continues to have adequate infrastructure for meeting the Air Force 
technology requirements and warfighter needs.
               air force information technology programs
    Question. What major improvements would you like to see made in the 
Air Force's development and deployment of major information technology 
systems?
    Answer. If confirmed, this is an area I would want to explore in 
greater depth. My current view, however, is that major information 
technology systems should be developed and deployed in conjunction with 
other DOD components to the maximum extent possible. A major 
information technology system would likely have applicability to 
organizations other than just the Air Force. Therefore, the Air Force 
should be partnering with those organizations to ensure unity of effort 
in development and sustainment of non stove-piped solutions.
    Question. How will you encourage process and cultural change in 
organizations so that they maximize the benefits that new enterprise 
information technology systems can offer in terms of cost savings and 
efficiency?
    Answer. Again, this is an area in which I look forward to becoming 
more expert, if confirmed. In order to maximize the benefits of new 
enterprise information technology, the Air Force should couple its 
existing process improvement program with IT systems that can 
effectively meet the requirements of those processes. I see great 
benefit in reducing the time airmen spend on administrative work and 
using that time to focus on operational requirements. If confirmed, I 
will strive to make that happen.
    Question. What is the relationship between Air Force efforts at 
implementing enterprise information technology programs and supporting 
computing services and infrastructure to support Air Force missions and 
efforts being undertaken by the Defense Information Systems Agency 
(DISA) and the Assistant Secretary of Defense for Networks and 
Information Integration?
    Answer. The Air Force and DISA have always had a strong 
relationship. It is my understanding that the Air Force has already 
taken steps to move computing services to the DISA Defense Enterprise 
Computing Centers. A pilot program is underway and the Air Force will 
use the results of this program to plan for the future migration of 
services across the country. If confirmed, I will continue to foster 
that relationship.
                         housing privatization
    Question. DOD has been engaged in the privatization of many of its 
support functions. Among the most significant privatization efforts is 
military family housing units and utility systems.
    In your view, what challenges does the Air Force face in 
implementing housing privatization and, if confirmed, how would you 
propose addressing those challenges?
    Answer. I believe that such housing privatization efforts can be 
beneficial for the Department as they leverage private sector resources 
for the betterment of the force. I think it is important to ensure that 
any private investment is providing a quality product for our airmen 
and their families. I do not know of any specific challenges with Air 
Force housing privatization. If confirmed, I plan on learning more 
about the Air Force's experiences and challenges. Once I am more 
familiar with the specifics of the Air Force program, I look forward to 
working with this committee on any specific areas that raise concern. 
It is critical that the Air Force remains committed to providing high 
quality housing to airmen and their families.
    Question. What adjustments, if any, would you anticipate as a 
result of the current lending environment?
    Answer. From my limited exposure to this area, the current credit 
market is delaying closure of some of the Air Forces' privatization 
deals. If confirmed, I will work with current and future privatization 
project owners to evaluate what adjustments, if any, need to be made in 
order to ensure success of this important program.
    Question. What actions would you propose, if any, to accommodate 
installations where there are housing shortfalls beyond the ability of 
the current privatization agreement?
    Answer. Quality housing communities are critical to Air Force 
members and their families. I understand the Air Force is currently 
determining on-base housing requirements. If confirmed, I will work 
with Air Force leadership, local community leaders, and privatization 
partners to ensure Air Force housing privatization deals are agile 
enough to accommodate unforeseen housing shortfalls. I am committed to 
ensuring our military members and their families are provided access to 
safe, quality and affordable housing.
    Question. What are your views regarding barracks privatization?
    Answer. If confirmed, I will make access to quality housing for 
unaccompanied airmen a priority. I will work with the Air Force's 
senior military leadership to review and determine the most beneficial 
means to provide housing within the dormitory system, whether 
acquisition is pursued through traditional military construction 
avenues or privatization will have to be determined to meet the goals 
of the department as well as the expectations of our service men and 
women.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the Military Services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    What is your assessment of Air Force infrastructure investment?
    Answer. If confirmed, I will review the current and future 
requirements for our infrastructure, to ensure that the Air Force can 
support its mission requirements and the Secretary of the Air Force's 
priorities.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Air Force 
facilities?
    Answer. If a thorough review of infrastructure investment indicates 
the Air Force is taking too much risk, then if confirmed, I will work 
closely with Air Force leadership to make appropriate fiscal 
adjustments to reduce the backlog and improve facilities.
            implementation of base closures and realignments
    Question. The Defense Base Realignment and Closure (BRAC) process 
has resulted in the required closure or realignment of numerous major 
Air Force installations. The DOD installation closure process resulting 
from BRAC decisions has historically included close cooperation with 
the affected local community in order to allow these communities an 
active role in the reuse of property.
    If confirmed, would you change any of the existing efforts to 
assist affected communities with economic development, revitalization, 
and re-use planning of property received as a result of the BRAC 
process?
    Answer. Close cooperation between military installations is vital 
during the BRAC closure process. If confirmed, I will review Air Force 
efforts at BRAC-impacted communities to ensure the Air Force is meeting 
the full spirit and intent of BRAC by allowing communities an active 
role in determining reuse of properties.
    Question. What, in your view, are the advantages or disadvantages, 
if any, of the use of no cost Economic Development Conveyances as a 
means of early property transfers under BRAC as opposed to seeking for 
full fair market value?
    Answer. I understand the debate that exists on the use of no cost 
EDCs. If confirmed, I would want to understand more fully the Air 
Force's historical experience and their view of the specific advantages 
and disadvantages of economic development conveyances.
                systems and support for wounded warriors
    Question. Air Force personnel who are wounded and injured 
performing duties in Operations Enduring Freedom and Iraqi Freedom 
deserve the highest priority from the Air Force for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from Active Duty if required, and 
continuing support beyond retirement or discharge.
    What is your assessment of the progress made to date by the Air 
Force and DOD to improve the care, management, and transition of 
seriously ill and injured Air Force personnel and their families?
    Answer. I believe that DOD and the Air Force are committed to 
providing our Wounded Warriors the best care possible. I have been 
advised that the Air Force has increased its number of Recovery Care 
Coordinators, and it has modified promotion, evaluation, and retention 
policies that previously put combat wounded airmen at a disadvantage. I 
believe that wounded airmen who wish to continue to serve should be 
given every opportunity to do so. If confirmed, I would continue the 
Air Force's commitment to review and assess all efforts ensuring that 
we are meeting the needs of our wounded airmen and their families.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. It is my understanding that the recovery care coordinator 
program is the key to ensuring airmen receive full-spectrum care, and I 
have been advised that the Air Force plans to convert contract 
positions to civil service to provide a more stable workforce of 
trained professionals providing a high level of personalized care.
    Question. What are the weaknesses that need to be corrected?
    Answer. It is my understanding that the Air Force wants to improve 
the program by earlier identification of wounded airmen's abilities and 
capabilities. If confirmed, I will join the Air Force's effort to 
evaluate the current process and do what is necessary to insert the 
identification of abilities and capabilities sooner in the process, to 
help wounded airmen make more timely career decisions.
    Question. What is your assessment of the need to streamline and 
improve the disability evaluation system?
    Answer. I support the attention that has been given to the 
Disability Evaluation System Pilot Program by DOD and Department of 
Veteran Affairs at 27 military installations across the United States. 
This is an area that will continue to need attention and aggressive 
efforts at streamlining and improvement. If confirmed, I would look 
forward to working with DOD and Air Force leadership to continue such 
improvements.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded Air 
Force personnel and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. If confirmed, I will work with the Secretary of the Air 
Force to continue to assess the efficiency and appropriateness of the 
Air Force's Warrior and Survivor Care Program to ensure the Air Force 
meets the needs of our wounded airmen.
                       homosexual conduct policy
    Question. The current homosexual conduct policy, commonly referred 
to as ``Don't Ask, Don't Tell,'' went into effect in February 1994 
after months of congressional hearings and debate resulting in the 
enactment of a Federal statute. Although there have been some changes 
in how this policy has been implemented, the basic policy has not 
changed. President Obama has made it clear that he intends to work with 
the military and with Congress to repeal the policy.
    What is your view on repealing or changing this policy?
    Answer. The President has stated an intent to work with Congress to 
repeal this policy. It is my understanding that he has entered into a 
dialogue with the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff about how to best proceed in this effort. I further 
understand that DOD intends to follow the law in this matter as it 
currently exists and to follow it however it may be changed. I support 
the Department's commitment to the law and to working with Congress on 
a way forward as regards this policy.
    Question. In your view, would changing this policy have an adverse 
impact on unit cohesion and good order and discipline in the Air Force?
    Answer. I understand that the Air Force is committed to maintaining 
good order and discipline, and ensuring a climate of mutual respect. If 
confirmed, I would work to understand the view of the senior leadership 
of the service as to whether there would be any possible impact on unit 
cohesion, as well as good order and discipline.
    Question. If confirmed, what role would you play in efforts to 
repeal or change this policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force to assess, advise and support him throughout review of the 
current policy.
    Question. If the policy is changed by Congress, would you recommend 
a phase-in period for implementation of the new policy?
    Answer. If confirmed, I would advise development of a thorough, 
complete and deliberate plan to implement any new policy, giving 
careful attention to the counsel of military leaders.
    Question. If confirmed, what role will you play in implementing a 
new policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force to assess, advise and support him in the implementing any new 
policy.
                 sexual assault prevention and response
    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
numerous incidents of sexual misconduct involving military personnel in 
Iraq, Kuwait, and Afghanistan are still being reported. Victims and 
their advocates claim that they are victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
treatment for the victim. They assert that their command fails to 
respond appropriately with basic medical services and with an adequate 
investigation of their charges followed by a failure to hold assailants 
accountable.
    Do you consider the current sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. I am advised that DOD and Air Force leadership have 
assertively developed and executed policies that have led to an 
improved environment for all airmen. I am also advised that the 
combined aspects of the revised sexual assault prevention and care 
program, including a confidential reporting process, appear to be 
serving Air Force personnel well. This is a critical issue. Those who 
serve must know that they can come forward confidentially to report a 
crime and that such reporting will be taken seriously. If confirmed, I 
will give this issue careful attention and work for constant 
improvement.
    Question. What problems, if any, are you aware of in the manner in 
which this new confidential reporting procedure has been put into 
operation?
    Answer. I am not aware of specific changes that are needed at this 
time. If confirmed, I will ensure I understand the current status of 
this effort in the Air Force and work with the Secretary on any areas 
identified for improvement.
    Question. What is your view of the steps the Air Force has taken to 
prevent sexual assaults in combat zones?
    Answer. I understand that the Air Force deploys a fully trained 
Sexual Assault Response Coordinator (SARC) to each of our Air 
Expeditionary Wings and intends to support an additional location. I 
believe it is vital to have a robust sexual assault training and 
awareness program in a deployed environment to ensure all personnel, 
regardless of military branch, know that the SARC is there to support 
them.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and respond to 
allegations of sexual assault?
    Answer. I have been informed that since 2006, all airmen entering 
basic training and all pre-commissioning programs are educated about 
sexual assault, their reporting options, and how to seek assistance if 
they have been a victim of this crime. I also understand that 
additional education and training courses are ready to implement across 
the Air Force this year to reach airmen throughout their time in the 
Air Force regardless of the length of their service. If confirmed, I 
will assess whether additional steps should be taken to support victims 
and hold offenders accountable.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. If confirmed, I will fully support the Secretary's 
oversight of the Air Force's Sexual Assault Prevention and Response 
Program. This is a problem though that does not affect the Air Force 
alone. In that regard, I would greatly support sustained partnerships 
with DOD and Congress, and with national subject matter experts and 
advocacy groups to get it right. Senior leadership must send a clear 
message that sexual assault is a criminal action and cannot and will 
not be tolerated in the Air Force. All servicemembers must have 
confidence that senior leaders will take any accusation seriously and 
that any evidence of a crime will result in prosecution.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the Air Force?
    Answer. It is my understanding that the Air Force actively supports 
free exercise of religion, mutual respect, and accommodation. If 
confirmed, I would continue the Air Force's commitment to upholding the 
free exercise of each person's religious convictions under the 
Constitution, and review policies as necessary to assure continued 
compliance with the First Amendment.
    Question. Do these policies accommodate, where appropriate, 
religious practices that require adherents to wear particular articles 
of faith?
    Answer. I understand that they do.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I understand that they do.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by Air Force chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. I understand that they do.
                           air force academy
    Question. What do you consider to be the policy and procedural 
elements that must be in place at the Air Force Academy in order to 
prevent and respond appropriately to sexual assaults and sexual 
harassment and to ensure essential oversight?
    Answer. I understand the Academy has institutionalized a 
comprehensive program of both prevention and response to sexual assault 
and sexual harassment. If confirmed, I will support vigilant oversight 
of this issue.
    Question. What is your assessment of corrective measures taken at 
the Air Force Academy to ensure religious tolerance and respect, and of 
Air Force guidelines regarding religious tolerance that were 
promulgated in August of 2005?
    Answer. I understand that corrective measures taken by the Air 
Force meet the constitutional obligations of protecting free exercise 
of religion rights of servicemembers with different beliefs, including 
no religious beliefs, and guard against governmental establishment of 
religion, and promote mutual respect. If confirmed, I will support 
vigilant oversight of this issue.
                      rising costs of medical care
    Question. In testimony presented to Congress in February 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that the cost of ``health care is eating the Department alive.''
    What is your assessment of the long-term impact of rising medical 
costs on future Air Force plans?
    Answer. My view is that the rising cost of health care costs is a 
tremendous problem for all Services. In the Air Force over the last 5 
fiscal years, medical costs have increased almost 8 percent annually. 
DOD and the Services must strike a balance between maintaining its 
compact with servicemembers and their families to provide them high-
quality medical care and the costs associated with this function which 
is taking up an increasingly great portion of the defense budget. 
Congress is also a critical partner in any decisions affecting medical 
care for servicemembers. If confirmed, I would work with the Secretary 
of the Air Force, appropriate officials in OSD and the other Services, 
and Congress to further address this issue.
    Question. If confirmed, what actions would you recommend to 
mitigate the effect of such costs on the Air Force top-line?
    Answer. The challenge of military health care costs cannot be 
solved in one service alone. TRICARE is a Department-wide system and 
any efforts to deal with rising costs must be dealt with across that 
system. Working to increase the utilization of the direct care system 
should lower costs as we recapture care that is being delivered in the 
private sector. Leveraging strategic partnerships across all services 
as well as civilian trauma centers, university medical centers, and the 
VA can provide a broad range of clinical opportunities for our entire 
medical team which in turn reduces expenditures in the private sector. 
For that reason, if confirmed, I will look forward to working with OSD, 
senior leadership from the Air Force and other Services, and Congress 
to strike the appropriate balance for these competing priorities.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. Reforms in these areas, in order to be effective, would 
need to be addressed across DOD. Doing so would necessitate working 
with a range of infrastructure, healthcare, and military personnel 
experts from OSD, the Services, and Congress to identify effective 
options. If confirmed, I would look forward to being an active 
participant in these efforts.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continue to soar and is becoming an ever 
increasing portion of the DOD and Air Force budgets.
    What actions do you believe can be taken to control the rise in 
personnel costs and entitlement spending?
    Answer. Personnel costs and entitlement spending now constitute a 
significant portion of DOD's budget. In the Air Force, 34 percent of 
the fiscal year 2010 budget supports pay and allowance for the Active 
Duty, Guard, Reserve, and civilian workforce. A major goal of the Air 
Force leadership is caring for airmen and their families. Part of that 
effort must be the recruitment and retention of the highest quality 
airmen and providing for them in their retirement. The Air Force, and 
the broader Department, must recognize, however, the pressure this puts 
on other parts of the budget. If confirmed, I will work with the rest 
of the Air Force leadership to continue to balance personnel costs with 
other high priority Air Force requirements.
    Question. If confirmed, what actions will you take to avoid a 
requirement for massive end-of-year reprogramming to cover personnel 
costs?
    Answer. If confirmed, I will work closely with Financial Management 
in DOD and Air Force to ensure budgeting is accurate. In addition, I 
will monitor execution, end-strength, and incentives to ensure a proper 
balance.
    Question. What is your assessment of the Air Force's use of 
bonuses?
    Answer. My understanding is that the Air Force has a relatively 
small bonus program compared to the other services; and its strategy is 
to surgically target bonuses towards those airmen with the skills most 
needed to accomplish its mission. From my knowledge to date, I believe 
the Air Force is using bonus programs judiciously and effectively to 
meet its retention goals.
    Question. What is your assessment of the Air Force's use of 
aviation career incentive pay or assignment incentive pay for UASs 
operators, both those who are rated pilots and those who are not?
    Answer. I have not yet had an opportunity to review the use of 
aviation career incentive pay for UASs operators. If confirmed, I will 
look into this issue.
                          mental health issues
    Question. The final report of the DOD Task Force on Mental Health, 
issued in June 2007, found evidence that the stigma associated with 
mental illness represents a ``critical failure'' in the military, 
preventing individuals from seeking needed care. The report states, 
``Every military leader bears responsibility for addressing stigma; 
leaders who fail to do so reduce the effectiveness of the 
servicemembers they lead.'' In light of increasing suicide rates in 
each of the Services and the increase in the number of servicemembers 
experiencing symptoms of post-traumatic stress, it is more important 
than ever to ensure that servicemembers and their families have access 
to mental health care and that the stigma associated with seeking such 
care is eliminated.
    In your view, what actions are necessary to alleviate this stigma?
    Answer. I strongly agree with the assessment of the Task Force and 
believe it is incumbent on every senior leader to ensure access to 
mental health care and to reduce the stigma associated with utilizing 
such services. If confirmed, I will examine efforts currently underway 
to address any stigma associated with accessing mental health services 
and work to ensure that all servicemembers understand that seeking help 
for problems in any area of their lives is a sign of strength. I will 
also work to ensure that Air Force leaders at every level consistently 
re-enforce the message that seeking help is a sign of strength and is 
supported.
    Question. What is your view of the need for revision of military 
policies on command notification when Air Force personnel seek mental 
health care?
    Answer. If confirmed, I will review existing policies in this area 
and make any recommendations necessary to ensure that these policies 
strike the proper balance between providing privacy for those seeking 
mental health care and the needs of the Air Force to maintain the 
ability to safely conduct the mission.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to Air Force personnel and their families upon return to 
home station?
    Answer. It is my understanding that 45 Air Force mental health 
professionals are deployed in support of the joint warfighting effort. 
I support Air Force efforts to provide mental health services to those 
in combat. If confirmed, I would like to understand the additional 
needs that exist both for the joint deployed force and for Air Force 
personnel and their families once they return to home station and would 
plan to review the effectiveness of recruitment and retention efforts 
currently in place.
               medical personnel recruiting and retention
    Question. DOD and the Air Force continue to face significant 
shortages in critically needed military medical personnel in both the 
Active and Reserve components. The committee is concerned that growing 
medical support requirements will compound the already serious 
challenges faced in recruitment and retention of military medical, 
dental, nurse, and behavioral health personnel.
    If confirmed, will you undertake a comprehensive review of the 
medical support requirements for the Air Force and the sufficiency of 
the plans to meet recruiting and retention goals in these specialties?
    Answer. Yes. If confirmed, I will partner with The Surgeon General, 
Air Force A1, and Air Force Recruiting Service for this comprehensive 
review
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Air Force can continue to meet medical support requirements?
    Answer. Bonuses and special pays are important tools that help the 
Air Force retain quality medical service personnel. I am not aware of 
any new requirements for legislative or policy initiatives in this 
area. If confirmed, I will review the Air Force's programs for 
recruiting and retaining military and civilian medical personnel in 
order to identify areas that may benefit from new policy or legislative 
initiatives.
                        military quality of life
    Question. In January 2009, the Department published its second 
Quadrennial Quality of Life Review, which focused on the importance of 
key quality of life factors for military families, such as family 
support, child care, education, health care, and morale, welfare, and 
recreation services.
    How do you perceive the relationship between quality of life 
improvements and your own top priorities for Air Force recruiting and 
retention?
    Answer. I believe there is a direct relationship between Quality of 
Life programs and success in the recruiting and retention of airmen. 
Quality of Life programs are the cornerstone of regenerating, 
sustaining, and retaining the military's most important asset--its 
people. Our airmen are only as strong as the network of family and 
friends around them and it is crucial that we take care of families so 
our airmen can focus on the mission.
    Question. If confirmed, what further enhancements to Air Force 
quality of life programs would you make a priority, and how do you 
envision working with the Department, combatant commanders, family 
advocacy groups, and Congress to achieve them?
    Answer. If confirmed, I will support policies and programs that 
enable the Air Force to achieve and sustain a ``Ready Air Force 
Family.'' I will support the Secretary of the Air Force's efforts to 
work closely with DOD and Service counterparts, combatant commands, and 
Congress to identify, resource, and execute the programs that will most 
effectively provide our military members and their families a quality 
of life that will sustain them and retain this most important national 
resource.
                             family support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for Air Force personnel and their families, and, if confirmed, 
how would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. Military families deserve our continued support. Important 
issues center on available and adequate child care, spouse employment, 
quality education for children, family separation during deployments 
and subsequent reintegration, and financial readiness.
    Question. If confirmed, I will work closely with DOD and Air Force 
leadership to gain a more comprehensive understanding of the issues 
facing Air Force families, including approaches to resourcing existing 
programs. Based on that, I hope to make a more informed judgment on the 
adequacy of funding for these important programs.
    How would you address these family readiness needs in light of 
global rebasing, BRAC, deployments, and growth in end strength?
    Answer. I believe that each of the factors mentioned in the 
question above increases the demand for family support services. If 
confirmed, I look forward to gaining a broader understanding of the 
specific impact of these issues and will foster an environment of 
support for all airmen and their families regardless of where they 
reside.
    Question. If confirmed, how would you ensure support to Reserve 
component families related to mobilization, deployment and family 
readiness, as well as to Active Duty families who do not reside near a 
military installation?
    Answer. The Reserve component is a critical part of the Air Force's 
Total Force approach and these families are equally deserving of 
support. There are additional challenges in providing effective support 
to Reserve families who may not live in close proximity to a base or to 
other military families. If confirmed, I will need to gain a broader 
understanding of these issues and the range of possible options for 
addressing them. My intent would be to foster an environment of support 
for all airmen and their families regardless of where they reside.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. In my capacity as staff director for the House Armed 
Services Committee, I have general knowledge of family support issues 
from multi-Service perspective. If confirmed, I will work closely with 
the Air Force leadership to explore and understand Air Force family 
support programs in more detail.
                         access to health care
    Question. As evidenced in a family support hearing held by the 
Subcommittee on Personnel earlier this year, one of the major concerns 
for military family members is access to health care. Military spouses 
tell us that the health care system is overwhelmed, and those stationed 
in more remote areas may not have access to adequate care.
    If confirmed, what steps would you take to ensure complete access 
to health care for the families of servicemembers?
    Answer. I concur with the subcommittee that this is a critical 
issue; adequate high-quality health care should be what military 
families can expect. If confirmed, I look forward to understanding more 
fully the challenges faced specifically by the Air Force and to 
identify options for addressing these challenges, particularly to 
ensuring that the Air Force medical service has the appropriate 
manpower at each installation to execute the Family Health Initiative.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel members and families 
assigned overseas, and personnel deployed in support of military 
training and operations.
    What challenges do you foresee in sustaining MWR programs, and, if 
confirmed, what improvements would you seek to achieve?
    Answer. The challenge continues to be maintaining the delicate 
balance of funding warfighting needs and family member support 
programs. MWR programs are needed to regenerate airmen and provide 
comfort for their families so human performance is optimized. If 
confirmed, I will continue to emphasize the importance of these 
programs to support the well-being of all our airmen.
      balance between civilian employees and contractor employees
    Question. In recent years, the Air Force and DOD have become 
increasingly reliant on services provided by contractors. Over the past 
8 years, DOD's civilian workforce has remained essentially unchanged in 
size. Over the same period, the Department's spending on contract 
services has more than doubled, with the estimated number of contractor 
employees working for the Department increasing from an estimated 
730,000 in fiscal year 2000 to an estimated 1,550,000 in fiscal year 
2007. As a result of the explosive growth in service contracts, 
contractors now play an integral role in the performance of functions 
that were once performed exclusively by government employees, including 
the management and oversight of weapons programs, the development of 
policies, the development of public relations strategies, and even the 
collection and analysis of intelligence. In many cases, contractor 
employees work in the same offices, serve on the same projects and task 
forces, and perform many of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Air Force and 
DOD?
    Answer. I agree with President Obama's government contracting 
memorandum of March 4, 2009, directing the executive departments and 
agencies to ensure that contracts are not wasteful or inefficient, that 
contracts are designed to meet Federal Government needs, and that 
inherently governmental functions are not outsourced. Congress through 
recent NDAAs has taken productive efforts to emphasize the importance 
of not outsourcing inherently governmental activities and to grow the 
acquisition workforce. If confirmed, I would work with the Secretary of 
the Air Force and leaders across the Air Force to assess this matter so 
as to ensure compliance with the law and with the President's policy.
    Question. In your view, has the Air Force become too reliant on 
contractors to perform its basic functions?
    Answer. I believe DOD generally has become too reliant on 
contractors to perform basic functions. While I am not specifically 
familiar yet with the Air Force's contracting approach, I continue to 
believe that inherently governmental functions should not be 
outsourced, consistent with President Obama's government contracting 
memorandum of March 4, 2009. If confirmed, I would work with the 
Secretary of the Air Force and leaders across the Air Force to assess 
this matter so as to ensure compliance with the law and with the 
President's policy.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Air Force?
    Answer. The Federal Acquisition Regulation restricts the use of 
personal services contracts. If confirmed, I would work with the 
Secretary of the Air Force and leaders across the Air Force to ensure 
compliance with applicable law and policy.
    Question. Do you believe that the Air Force and DOD should 
undertake a comprehensive reappraisal of ``inherently governmental 
functions'' and other critical government functions, and how they are 
performed?
    Answer. I fully support the principles and policies set forth in 
President Obama's memorandum of March 4, 2009. That memorandum directs 
the Office of Management and Budget, in coordination with the Secretary 
of Defense, among others, to develop and issue ``government-wide 
guidance to assist branch agencies in reviewing, and creating processes 
for ongoing review of, existing contracts in order to identify 
contracts that are wasteful, inefficient, or not otherwise likely to 
meet the agency's needs and to formulate appropriate corrective action 
in a timely manner.'' I believe that any such review must include a 
review of inherently governmental functions and other critical 
government functions and how they are performed. If confirmed, I will 
support any such review and corrective action, particularly as it 
relates to matters under the purview of the Under Secretary of the Air 
Force.
    Question. If confirmed, will you work with other appropriate 
officials in DOD to address these issues?
    Answer. If confirmed, I will work collaboratively with appropriate 
Air Force and DOD officials to ensure these matters are addressed in 
the best interest of the Air Force and DOD.
                       civilian personnel systems
    Question. Section 1113 of the NDAA for Fiscal Year 2010 repealed 
the statutory authority for the National Security Personnel System 
(NSPS), and required that all NSPS employees be converted to other 
personnel systems by no later than January 1, 2012.
    Answer. If confirmed, will you ensure that Air Force NSPS employees 
are converted to other personnel systems as quickly as practicable, and 
with as little disruption to their organizations and their work as 
possible?
    Answer. Yes.
    Question. Section 1113 also provides DOD with extensive personnel 
flexibilities for its civilian employees that are not available to 
other agencies. In particular, section 9902(a) of title 5, U.S.C., as 
added by section 1113, directs the Department to establish a new 
performance management system for all of its employees. Section 9902(b) 
directs the Department to develop a streamlined new hiring system that 
is designed to better fulfill DOD's mission needs, produce high-quality 
applicants, and support timely personnel decisions.
    Do you agree that the Air Force's civilian employee workforce plays 
a vital role in the functioning of the Department?
    Answer. Yes.
    Question. What is your view of the personnel flexibilities provided 
by section 1113?
    Answer. I understand that the Air Force is already an active 
participant in DOD and government-wide teams looking into options for a 
possible new civilian hiring system and performance management system. 
In the interim, I believe that the flexibilities granted by Congress 
can help ensure that the Department is able to hire high quality 
applicants during this period of transition. If confirmed, I will do 
everything I can to ensure and facilitate Air Force's continued 
participation in these important projects and to execute the changes in 
law as intended by Congress.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the Air 
Force and promotes the quality of the Air Force's civilian workforce?
    Answer. Yes.
           defense integrated military human resources system
    Question. The Department and the Services continue to work toward 
adoption of the Defense Integrated Military Human Resources System 
(DIMHRS) as a cross-Service, fully integrated personnel and pay system. 
Under the proposed timeline, the Army is the first in line to launch 
DIMHRS, with the Air Force, Navy, and Marine Corps to follow. Recent 
reports indicate technical difficulties have postponed the Army's 
launch date.
    What is your assessment of the need for an integrated, cross-
Service personnel and pay system?
    Answer. The integration of both personnel and pay into one common 
system will provide several key benefits for both the Air Force and for 
DOD. Some of these benefits are; the retirement of outdated legacy 
systems (reducing maintenance costs), the reduction of payroll errors, 
the ability to leverage the latest in industry technology, and the 
improved delivery of human resource information to our airmen.
    Question. What is the status of the implementation of DIMHRS in the 
Air Force?
    Answer. It is my understanding that per USD (AT&L) direction, the 
Air Force is evaluating the DIMHRS product as built to date to assess 
how best to use the DIMHRS solution to the maximum extent possible. If 
confirmed, I intend to look into the issue and to become more familiar 
with the status of DIMHRS implementation in the Air Force.
    Question. If confirmed, what changes, if any, would you recommend 
to the implementation schedule and process currently in place for the 
Air Force?
    Answer. If confirmed, I would ensure the Air Force progresses in a 
measured approach to the program, considering lessons learned 
throughout each phase of the build-out increments to ensure DIMHRS is 
leveraged to the maximum extent possible. As I learn more about Air 
Force implementation, I would assess any changes that might be needed.
    Question. If confirmed, what role do you plan to play in oversight 
over and direction of Air Force efforts to develop and deploy DIMHRS?
    Answer. If confirmed, my duties as the CMO for the Air Force would 
be to work closely with the Air Force acquisition and functional 
communities. I would ensure appropriate metrics for effective 
management are applied, and would strive to identify efficiencies via 
business process reengineering, policy changes and reducing 
customization of commercial technology.
                            gi bill benefits
    Question. Last year, Congress passed the post-September 11 Veterans 
Educational Assistance Act that created enhanced educational benefits 
for servicemembers who have served at least 90 days on Active Duty 
since September 11. The maximum benefit would roughly cover the cost of 
a college education at any public university in the country.
    What is your assessment of the effect of the post-September 11 
Veterans Educational Assistance Act on recruiting and retention of 
servicemembers for service in the Air Force?
    Answer. In my current capacity as Staff Director, I have heard from 
a broad variety of servicemembers how much they value and appreciate 
the new GI Bill. Traditionally, educational benefits have been a strong 
consideration for members who want to enter Military Service; as well 
as, an incentive for members to continue serving to maximize 
educational opportunities. I believe that these new educational 
benefits will have a positive impact on recruitment and retention. If 
confirmed, I will ensure that there is a process to assess the impact 
of this important new benefit on Air Force recruiting and retention.
    Question. What is your view of the effectiveness of the 
transferability provisions contained in the act on retention of mid- 
and late-career servicemembers?
    Answer. I am aware that the transferability provisions were highly 
sought by many servicemembers and their families. My initial 
assessment, from my current position, is that these provisions are 
having a beneficial effect. But if confirmed, I would familiarize 
myself with the relevant data and monitor the impact of the provision 
on retention of mid- and late-career servicemembers.
              quadrennial review of military compensation
    Question. Last year, the Department released the 10th Quadrennial 
Review of Military Compensation (QRMC). Among other recommendations, 
the QRMC proposes a new defined benefit retirement plan that more 
resembles the benefits available under the Federal Employee Retirement 
System than the current military retirement benefit; increasing TRICARE 
fees for retirees; and the adoption of dependent care and flexible 
spending accounts for servicemembers.
    What is your assessment of the QRMC recommendations, particularly 
the proposed new defined retirement plan?
    Answer. I believe that any reduction in pay, allowances or benefits 
could have an adverse effect on morale and retention. But any new 
proposal should be carefully considered to understand the direct and 
second-order implications. If confirmed, I will ensure that any new 
proposal is reviewed to understand the consequences of implementation 
and assess whether support is in the best interest of military 
personnel.
    Question. Do you believe that servicemembers should have access to 
flexible spending arrangements?
    Answer. Flexible spending accounts can provide employees with 
options and should be given consideration. If confirmed, I would ensure 
that full and fair consideration is given to any program that offers 
advantages to personnel, particularly if there is no adverse budgetary 
impact.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are supposed 
to be assigned to follow-on positions in their services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the value of the Legislative Fellows 
program to the Air Force and to the career development of the officers 
involved?
    Answer. I am a strong supporter of the Legislative Fellows program 
from my experience with the House Armed Services Committee. The 
Legislative Fellows program can provide mid-career officers with an 
invaluable experience as it exposes top tier officers, on track to be 
future Air Force senior leaders, to the inner workings of the 
legislative process as it relates to DOD issues. Additionally, the 
relationships they form with civilian leaders and their staffs in 
Congress can benefit the officer, especially as he or she progresses 
into senior officer ranks.
    Question. What is your assessment of the Air Force's utilization of 
officers who have served as legislative fellows?
    Answer. My understanding is that the Air Force been successful in 
properly utilizing fellows after they complete the program. Every 
effort is made to assign them to follow on positions which utilize 
their legislative experience. If confirmed, I would look more carefully 
at the utilization of prior legislative fellows.
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Air 
Force senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. I believe that the Senior Executive Service is crucial to 
providing the consistent leadership and continuity of excellence in 
these critical career fields. It is my understanding that the Air Force 
has implemented a rigorous corporate approach to overall management of 
the senior executive corps, which facilitates recruitment, development, 
compensation, and succession planning for senior civilian leaders. If 
confirmed, I will continue to support this approach.
    Question. Over the last 10 years, the Air Force budget has almost 
doubled, but the number of senior executives in the Department of the 
Air Force has remained almost unchanged.
    Do you believe that the Air Force has the number of senior 
executives it needs, with the proper skills to manage the Department 
into the future?
    Answer. I have not yet had the opportunity to review the number of 
Air Force senior executives and their associated skill sets. If 
confirmed, I will look into the issue.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Begich
                   healthcare for military in alaska
    1. Senator Begich. Ms. Conaton, Active Duty military, their 
families, and retirees face many challenges accessing health care in 
Alaska. The military treatment facilities at Forts Wainwright and 
Elmendorf are top quality and provide many services to military members 
and their families. However, many specialties are either not available 
at the military treatment facilities or at capacity, and cannot 
accommodate all customers. Many civilian specialists in Alaska do not 
participate in the TRICARE network. As a result, certain health care 
needs of military members and their families in Alaska are not being 
met. If confirmed, what steps would you take to improve access to 
healthcare in Alaska?
    Ms. Conaton. If confirmed, I look forward to working with the other 
Services, the Coast Guard, the Health Affairs office in the Office of 
the Secretary of Defense, and Congress to explore ways to increase 
healthcare access in Alaska. I would also seek Air Force discussions 
with the TRICARE Management Agency, the Department of Veterans Affairs, 
and Indian Health Service to identify potential options for improving 
the health care not only for TRICARE beneficiaries, but for other 
Federal beneficiaries and residents of the State of Alaska.

    2. Senator Begich. Ms. Conaton, if confirmed, please describe how 
you would work with TRICARE Management Agency (TMA) as they work to 
increase the TRICARE network in Alaska to provide for better access to 
health care for our servicemembers and their families.
    Ms. Conaton. It is my understanding that the Air Force, other 
Services, and Coast Guard are already engaged with the TMA to increase 
access for our TRICARE beneficiaries in Alaska. If confirmed, I look 
forward to familiarizing myself on this issue and learning more about 
the Air Force plans and progress.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                 cost assessment and program evaluation
    3. Senator Burris. Ms. Conaton, if confirmed, how do you plan to 
work with the new Director of Cost Assessment and Program Evaluation 
(CAPE) position that has been created this past year to advise the 
Secretary of Defense on program cost efficiency?
    Ms. Conaton. Based on my involvement in the passage of the Weapon 
Systems Acquisition Reform Act (WSARA) of 2009 from my current position 
with the House Armed Services Committee, I believe strongly in the 
benefits of the new Director of CAPE. This position should help greatly 
in improving the cost effectiveness and accountability of Department of 
Defense (DOD) programs. If confirmed, I would fully support the CAPE 
Director to help ensure that the Air Force incorporates accurate and 
precise cost estimates into program cost, technical, and schedule 
baselines early in the life of a program. These measures are critical 
to acquisition program success and increased congressional and public 
confidence in Air Force programs. I would strive to work effectively 
with the CAPE Director to meet the new direction set forth in the 
WSARA, aggressively utilize resources available through the Workforce 
Development Fund, and support and execute the Secretary of the Air 
Force's acquisition improvement plan.

                            unmanned systems
    4. Senator Burris. Ms. Conaton, what priority will you be placing 
on U.S. advancement of unmanned drones and their use in surveillance 
missions?
    Ms. Conaton. If confirmed, the advancement of unmanned aerial 
systems (UASs) and their use in intelligence, surveillance, and 
reconnaissance missions will be a high priority for me. General 
Schwartz has previously said that UASs are a game-changing capability. 
The effects they provide have emerged as one of the most in-demand 
assets the Air Force provides the Joint Force. If confirmed, I look 
forward to working with Secretary Donley and General Schwartz to fully 
understand their perspective on these issues and further expand this 
capability.

    5. Senator Burris. Ms. Conaton, do you believe that unmanned 
aircraft pilots should also be trained to fly manned aircraft as well?
    Ms. Conaton. It is my understanding that the Air Force has 
developed a new model to train pilots of unmanned aerial systems in a 
way that does not require them to fly a manned airframe beyond their 
Initial Flight Training (IFT). Given the significant and rapidly 
increasing demand for UAS support, I think it is appropriate for the 
Air Force to look at nontraditional means of meeting the demand for UAS 
pilots. If confirmed, I look forward to gaining a greater understanding 
of the Air Force's plans in this regard.
                                 ______
                                 
               Questions Submitted by Senator John McCain
 environmental impact studies for the stationing of the f-35 lightning
    6. Senator McCain. Ms. Conaton, the Air Force recently announced 10 
candidate bases for the stationing of the F-35 Lightning, also known as 
the Joint Strike Fighter. Within the next 2 months, the Air Force will 
start the Environmental Impact Study (EIS) required by the National 
Environmental Policy Act. As you may know, the Air Force has 
encountered problems with a similar assessment for the stationing of F-
35s at Eglin Air Force Base (AFB), resulting in a delay in construction 
of facilities, a reduction in the number of F-35s to be stationed at 
Eglin AFB, and a lawsuit by a local community. If confirmed, what 
actions would you propose to ensure the same issues for the Air Force 
do not delay the upcoming EIS?
    Ms. Conaton. If confirmed, I would work to ensure the Air Force 
follows through on its new basing process which--as I understand it--
was developed based on lessons learned from the initial, BRAC-directed, 
F-35 beddown. I understand this new process takes an enterprise-wide 
look to identify the best-suited candidate base for the mission, and 
should allow the Air Force to more deliberately plan for contingencies 
that arise from fielding complex weapon systems, such as the F-35. If 
confirmed, I look forward to working with all of the players involved 
in this decision, including this committee, to avoid future delays.

    7. Senator McCain. Ms. Conaton, in your opinion, is the Air Force 
adequately addressing the concerns over the noise associated with F-35 
operations?
    Ms. Conaton. As I am not yet confirmed, I have not had access to 
details regarding noise concerns with F-35 operations. If confirmed, I 
look forward to understanding this issue better and providing a more 
detailed response.

    8. Senator McCain. Ms. Conaton, what else can be done to allow 
communities to accurately and objectively understand the true impact F-
35 operations will have with regards to noise?
    Ms. Conaton. I understand the Air Force is conducting the necessary 
noise analysis as part of the EIS process. I believe it is important 
for the public to have an accurate understanding of the impact of F-35 
noise. If confirmed, this is an area I would want to explore in greater 
depth.

    9. Senator McCain. Ms. Conaton, can you provide for the record an 
estimated timeline for the Air Force to achieve the major milestones in 
the EIS through the Record of Decision in order to meet the operational 
need dates for the F-35?
    Ms. Conaton. I have not yet had the opportunity to review the Air 
Force timeline of the EIS for the F-35. If confirmed, I look forward to 
working with Secretary Donley and Congress to help ensure an 
appropriate basing strategy for the F-35.

     under secretary of the air force as executive agent for space
    10. Senator McCain. Ms. Conaton, in the past, the Under Secretary 
of the Air Force has been designated as the Air Force's executive agent 
for space programs. However, prior to leaving office 10 months ago, 
John Young, the former Under Secretary of Defense for Acquisition, 
Technology, and Logistics expressed doubts that the Under Secretary of 
the Air Force, who must balance the competing interests of all Air 
Force programs, is the right person for this task. What are your views 
on this issue?
    Ms. Conaton. I understand the organization and management of space 
issues within the Air Force headquarters is under internal review, as 
well as through the Quadrennial Defense Review and Space Posture Review 
processes. Based on my limited knowledge, I am hopeful these reviews 
and studies will sufficiently inform and assist the DOD and the Air 
Force in developing the way ahead, to include lines of authority and 
organizational structures. If confirmed, I would expect to work 
collaboratively with leaders across the DOD on a wide range of duties 
and responsibilities that the Secretary of the Air Force would assign 
to me.

    11. Senator McCain. Ms. Conaton, do you think that DOD and the Air 
Force might be better off with a non-Service specific, joint approach, 
as advocated by former Under Secretary Young?
    Ms. Conaton. The roles and responsibilities for the Air Force in 
space policy and programs are currently under review both by DOD and 
the Air Force. Based on that review, I expect the Secretary of Defense 
and the Secretary of the Air Force to make a judgment about the best 
organizational construct for accomplishing DOD's and the Air Force's 
space missions. I anticipate being an active participant in those 
deliberations and to serving in whatever capacity for space policy and 
programs that the Secretary finds most appropriate and beneficial to 
the Air Force. Beyond this specific area, I look forward to working as 
the Secretary's deputy and principal assistant across the range of his 
responsibilities.

                           acquisition reform
    12. Senator McCain. Ms. Conaton, in May 2009, Air Force leadership 
completed an Air Force acquisition improvement plan (AIP), which laid 
out how the Air Force intends to reform its procurement of major 
weapons systems. Among the critical areas where the Air Force found 
problems was ``overstated and unstable requirements that are difficult 
to evaluate during source selection''. Do you agree with that finding?
    Ms. Conaton. Yes.

    13. Senator McCain. Ms. Conaton, what steps do you think the Air 
Force should take to prevent it from happening?
    Ms. Conaton. I understand the Air Force is taking corrective 
actions to improve how program requirements are translated into system 
requirements for evaluation in a source selection. The AIP requires 
leadership involvement early in the development of program requirements 
of major weapons systems, including certifying that operational 
requirements are feasible, i.e., technically achievable and executable 
within the estimated schedule and budgeted life-cycle cost. Further, I 
understand that the Air Force plans to use multifunctional independent 
review teams for all competitive acquisitions over $50 million, to 
assess critical decision points within the business and contract 
clearance process. If confirmed, this is an area I would expect for 
focus on in more depth.

    14. Senator McCain. Ms. Conaton, do you see value in pursuing 
incremental acquisition strategies that deliver early, if only partial, 
operational capability, rather than strategies that deliver the 100 
percent solution?
    Ms. Conaton. Yes, I see significant value in pursuing incremental 
acquisition strategies to get needed capability to warfighters earlier, 
especially in this time of rapidly evolving technology and threats.

    15. Senator McCain. Ms. Conaton, how important is it to freeze 
program requirements at contract award and to require that any 
subsequent changes to ``key performance parameters'' be accompanied by 
adequate funding and schedule considerations that are reviewed (and 
agreed on) by the Chief of Staff prior to validation by the Joints 
Requirements Oversight Council (JROC)?
    Ms. Conaton. Being involved from my current position in the 
drafting and passage of the Weapons System Acquisition Reform Act, I am 
convinced that getting a handle on requirements early in a program is 
critical. It is crucial to freeze program requirements at contract 
award and to require that any subsequent changes to ``key performance 
parameters'' be accompanied by funding and schedule considerations 
agreed on by the Chief of Staff prior to validation by the JROC. 
Freezing requirements helps to stabilize programs, reduce acquisition 
risk and improve the requirements generation process both for the Air 
Force and its industry partners by minimizing requirement changes 
during the weapons system's development process.

    16. Senator McCain. Ms. Conaton, one critical area that the Air 
Force identified for reform in its May 2009 acquisition improvement 
plan was the need for clear lines of authority and accountability 
within the Air Force's acquisition organizations. According to the Air 
Force, the hierarchical wing/group/squadron structure has diminished 
``functional mentoring and support,'' which once provided Air Force 
contracting officers with the sense of authority that allowed necessary 
independent decisionmaking. The Air Force's findings seem to be that, 
under the current organizational structure, the best and brightest of 
the Air Force uniformed acquisition work force aren't being allocated 
to where they are most needed and the Air Force seems to be 
structurally limited in being able to develop new uniformed talent for 
that work force. Do you share those concerns? If so, how can those 
shortcomings be corrected within the existing organizational structure?
    Ms. Conaton. I share the concerns raised by the Secretary of the 
Air Force and the Chief of Staff in the May 2009, Acquisition 
Improvement Plan. Based on my current knowledge, I concur with the Air 
Force realignment of the current Wing/Group/Squadron organizational 
structure to a Directorate/Division/Branch structure for most 
acquisition organizations. I understand that this realignment is 
manpower neutral and is designed to improve clear lines of authority 
and accountability within the acquisition organizations. I believe it 
will strengthen functional management, improving hiring, training, and 
development of personnel in addition to supporting the independence of 
the contracting function. The strength and quality of the acquisition 
workforce is a key issue and one that I would expect to focus on, if 
confirmed.

    17. Senator McCain. Ms. Conaton, in 2008, GAO sustained bid 
protests on two of the Air Force's highest acquisition priorities--the 
KC-X aerial refueling tanker replacement program and the Combat Search 
and Rescue helicopter replacement program (CSAR-X). In its May 2009 Air 
Force acquisition improvement plan, Air Force leadership agreed that 
those GAO decisions (and other events) required that the Air Force 
needed to re-examine its procedures for large system acquisition source 
selections. In doing so, the Air Force recognized two critical areas 
that needed to be addressed: ``incomplete source selection training 
that has lacked `lessons learned' from the current acquisition 
environment'' and `` the delegation of decisions on leadership and team 
assignments for major defense acquisition program source selections 
have been too low.'' Do you agree with that appraisal?
    Ms. Conaton. Yes, I agree with that appraisal.

    18. Senator McCain. Ms. Conaton, what specific step do you think 
should be taken to ensure that Air Force personnel have the required 
experience and training to conduct source selections--particularly on 
major weapons programs?
    Ms. Conaton. I understand the Air Force is identifying acquisition 
professionals with recent source selection experience and using them 
for major weapons systems acquisitions. The recency of experience, 
along with the prerequisite acquisition training and certification, 
should provide the Air Force the necessary skill sets needed for source 
selections. If confirmed, I look forward to learning more in this area 
to further develop my initial assessment.

         international training of f-16 pilots by the air force
    19. Senator McCain. Ms. Conaton, for the past 20 years, 95 percent 
of the international F-16 pilot training undertaken by the Air Force as 
part of the foreign military sales program has been conducted by the 
162nd Air National Guard Fighter Wing based at Tucson Airport in 
Arizona, in part due to the great flying weather and access to the 
Barry M. Goldwater Range. There is an initiative pending within the Air 
Force concerning the U.S. military location to support training of 
international F-16 pilots from the Netherlands and Singapore. A 
decision to shift a part of this training to another area of the 
country away from adequate training ranges should be based on assessing 
the best value to the Government and the most effective venue for 
international pilot training and not on creating new missions for 
underutilized units or political concerns. If confirmed, can you review 
this initiative and report back to the committee on the factors being 
considered by the Air Force regarding this decision?
    Ms. Conaton. I am not yet familiar with the current Air Force 
thinking on this training. If confirmed, I would be happy to take a 
closer look at this initiative and discuss what I learn with the 
committee.
                                 ______
                                 
    [The nomination reference of Erin C. Conaton follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 10, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Erin C. Conaton of the District of Columbia, to be Under Secretary 
of the Air Force, vice Ronald M. Sega, resigned.
                                 ______
                                 
    [The biographical sketch of Erin C. Conaton, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Erin C. Conaton
                               education
    The Fletcher School of Law and Diplomacy, Tufts University, Aug. 
1993-May 1998; received Master of Arts in Law and Diplomacy, May 1995; 
completed all requirements for Ph.D. other than dissertation from 1995-
1998
    School of Foreign Service, Georgetown University, Aug. 1988-May 
1992; received Bachelor of Science in Foreign Service, May 1992
                           employment record
    Staff Director, Committee on Armed Services, U.S. House of 
Representatives, 2007-2009
    Minority Staff Director, Committee on Armed Services, U.S. House of 
Representatives, 2005-2007
    Professional Staff Member, Committee on Armed Services, U.S. House 
of Representatives, 2001-2005
    Research Staff Director, U.S. Commission on National Security/21st 
Century (Hart-Rudman Commission), 2000-2001
    Research Associate, U.S. Commission on National Security/21st 
Century (Hart-Rudman Commission), 1998-2000
    Graduate Fellow, Central Intelligence Agency, January-March 1998
    Summer Associate, Overseas Private Investment Corporation, summer 
1995
    Summer Graduate Fellow, National Security Council, summer 1994
    Director of Client Services, Yield Enhancement Strategists, Pearl 
River NY, 1993
    Financial Analyst, Salomon Brothers Inc. New York, NY, 1992-1993
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Erin C. 
Conaton in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Erin Cathleen Conaton.

    2. Position to which nominated:
    Under Secretary of the Air Force.

    3. Date of nomination:
    November 10, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 26, 1970; Hackensack, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    The Fletcher School of Law and Diplomacy, Tufts University, 1993-
1998, received Master of Arts in Law and Diplomacy in May 1995; 
continued onto the Ph.D. and left completing all requirements except 
the doctoral dissertation.
    School of Foreign Service, Georgetown University, 1988-1992, 
graduated with a Bachelor of Science in Foreign Service in May 1992.
    Immaculate Heart Academy, Washington Township, NJ, 1984-1988; 
received high school diploma, 1988.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Staff Director, Committee on Armed Services, U.S. House of 
Representatives, Washington DC, January 2007-present.
    Minority Staff Director, Committee on Armed Services, U.S. House of 
Representatives, Washington DC, September 2005-January 2007.
    Professional Staff Member, Committee on Armed Services, U.S. House 
of Representatives, Washington DC, June 2001-September 2005.
    Research Associate and then Research Staff Director, U.S. 
Commission on National Security/21st Century (Hart-Rudman Commission), 
September 1998-June 2001.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Graduate Fellow, Central Intelligence Agency, January-March 1998
    Summer Graduate Fellow, National Security Council, summer 1994

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Women in International Security
    Class Agent, Fletcher School of Law and Diplomacy Class of 1995

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteer member of defense policy team for Obama/Biden Campaign
    Volunteer member of defense policy team for Kerry/Edwards Campaign
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    6/16/08 - Obama/Biden Campaign, $500
    7/27/08 - Obama/Biden Campaign, $1,000
    10/08/08 - Obama/Biden Campaign, $800
    11/03/06 - Democratic Congressional Campaign Committee, $200

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    1998, National Finalist, White House Fellows Program
    1996-1997, International Security Studies Fellowship, The Fletcher 
School of Law and Diplomacy, Tufts University
    1993-1997, Jacob K. Javits Fellowship, U.S. Congress and U.S. 
Department of Education, Washington, DC
    1992, Graduated magna cum laude, Phi Beta Kappa from Georgetown 
University as a School of Foreign Service Scholar and recipient of 
Dean's Citation for Service

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Conaton, Erin C. and Laurent L. Jacque. Management and Control of 
Foreign Exchange Risk (A Guide for Instructors). Kluwer Academic Press, 
1997.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Erin C. Conaton.
    This 15th day of November, 2009.

    [The nomination of Erin C. Conaton was reported to the 
Senate by Chairman Levin on December 2, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 4, 2010.]
                              ----------                              

    [Prepared questions submitted to Lawrence G. Romo by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. If confirmed as the Director of Selective Service what 
would be your principal responsibilities and duties?
    Answer. The principal responsibilities of the Director are noted in 
the Military Selective Service Act: to be ready to provide both trained 
and untrained manpower to the Armed Forces in the numbers and 
timeframes requested by the Department of Defense (DOD), and to be 
prepared to manage an Alternative Service Program for those men 
classified as conscientious objectors. This charter implies that 
Selective Service be organized, staffed, and trained to perform these 
tasks.
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. Actually, my entire career has taken me on a path leading 
to this appointment. I have an affinity for military service: beginning 
as an USAF Academy graduate, a serving officer in the Active and 
Reserve components, and am currently working for the U.S. Army as a 
civilian. Public service is my life's preoccupation, both in and out of 
uniform. I believe that, even beyond a proven ability to build 
productive relationships among communities, the Texas Legislature, and 
the Federal Government, I was appointed to this position because of my 
familiarity with DOD, my demonstrated commitment to a strong national 
defense, and a career of public service.
                             relationships
    Question. The mission of the Selective Service System (SSS) is to 
provide manpower to the Armed Forces in time of national emergency and 
to manage an Alternative Service Program for men classified as 
conscientious objectors during a draft.
    If confirmed, what would your relationship be to the Secretary of 
Defense and the Under Secretary of Defense for Personnel and Readiness?
    Answer. It is clear that the chief customer of Selective Service is 
the Secretary of Defense. Today, Selective Service receives its 
guidance on the number of conscripts that may be required in a crisis, 
as well as the desired timeframes from the manpower planners in his 
Department. The Agency's primary contact within DOD is the Under 
Secretary for Personnel and Readiness. The SSS also works very closely 
with the Military Entrance Processing Command which also comes under 
his structure. As necessary, there is also direct liaison with the 
Office of the Secretary of Defense regarding SSS policy issues. Over 
many years, these relationships have worked well and I will ensure that 
they continue.
    Question. If confirmed, what would your relationship be to the 
Assistant Secretaries for Manpower in the Military Services; the 
uniformed personnel chiefs of the Military Services; the Chief of the 
National Guard Bureau; the Reserve component chiefs; and the manpower 
officials in the Joint Staff?
    Answer. As an independent civilian Agency, Selective Service's 
principal interface with DOD is the Under Secretary of Defense for 
Personnel and Readiness. Joint and Service manpower officials express 
their needs up their chain of command to OSD. This said, Selective 
Service has historically responded to the Services on Service-unique 
issues. For example, the SSS has been assisting individual Service 
recruiting efforts by including a recruiting brochure for the Active 
and Reserve components in our registration acknowledgment envelope 
mailed to more than 94,000 men each week. As Director, I will meet with 
the Service Secretaries as necessary. The Chief of the Bureau and the 
Reserve Chiefs support the Agency by placing 150 National Guard and 
Reserve officers in Selective Service assignments and assisting with 
the registration of young men.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Director of the SSS?
    Answer. There are four: getting the registration message out to the 
public given budget limitations, maintaining the registration 
compliance rate above the 90 percent range, assuring the public that if 
a draft is reinstated it will be fair and equitable, and defending the 
System against challenges from those who believe that our Nation no 
longer needs our capability.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. To heighten awareness of the registration requirement among 
men 18 through 25 years old I would focus more mass mailings to 
targeted shortfall areas, augmented with public service advertising. 
This would expand the reach and frequency of the registration message. 
In support of this approach, I would add momentum and sustainability by 
encouraging more States to link driver's permits and licenses to the 
Federal registration requirement. Finally, I would ensure a top-to-
bottom review of all mobilization programs to determine the exact costs 
for readiness and whether the proper level of readiness has been 
achieved. Selective Service needs to be as ready and capable as is 
necessary to fulfill its responsibilities. With the foregoing 
accomplished, justification for the Agency and its mission would be 
self-evident.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the SSS?
    Answer. I believe they are two: eroding public awareness of the 
Federal registration requirement and the loss of trained personnel from 
the Agency. I am sensitive to the fact that the public awareness task 
is never completed because another 6,000+ young men turn 18 years old 
every day in the United States and excellent Selective Service 
employees are leaving for retirement or other jobs. Trained, dedicated 
personnel are the lifeblood of any service organization like Selective 
Service.
    Question. What plans do you have for addressing these challenges?
    Answer. One of my first actions would be to spend about 60 days 
assessing the structure, budget, and programs of the System. Given the 
sizeable Agency investment in information technology over several 
years, a smarter realignment of programs and people is possible. New 
assignments and new challenges ought to excite staff and aid retention. 
Resources should be available for reprogramming in sync with priorities 
that I will set.
          military personnel and the selective service system
    Question. The SSS is authorized to use military members, from both 
the Active and Reserve components, to accomplish its mission. 
Currently, about 150 members of the National Guard and Reserve fulfill 
their military training obligations with the SSS.
    Please describe the current military manpower requirements of the 
SSS and any initiatives taken by DOD and each of the Services to lower 
the number of uniformed military personnel who support the SSS.
    Answer. Over the years, OSD and the Military Services have been 
most cooperative in satisfying the Agency's military requirements, and 
working with them, Selective Service has reduced its uniformed assets. 
Since the mid-1990s, SSS has continuously realigned and updated those 
requirements. So the Agency now has assigned only 150 part-time 
National Guard and Reserve officers instead of 728 in 1993. Field grade 
officer positions were reduced by about 22 percent. Finally, SSS has 
eliminated all full-time military--from 19 in 1994 to 0 in 2005.
    Question. To your knowledge, have there been proposals to 
substitute civilian positions for Active Duty or Reserve component 
personnel, and what are your views about such an initiative?
    Answer. Yes, SSS has proposed replacing higher cost Active Duty 
positions with civilians. Although there has been a 100 percent 
reduction in Active Duty officers (19 in 1994 to 0 in 2005), there has 
not been a one-for-one replacement with civilians. In fact, civilian 
full-time staff has also gone down from 277 in 1992 to 136 in 2008. 
Further, the Agency has never sought replacements for its declining 
number of part-time Reserve component personnel. Declining military and 
civilian personnel has been compensated for by applying more 
automation, changing policies, reshaping the organization, and smart 
staff training. These approaches have worked and the Agency has been 
doing more with less, so there is no need to surge employees of any 
type.
    Question. What are your personal views about the requirement for 
military personnel to operate and manage the SSS?
    Answer. While there is a benefit from military representation in 
the Agency, and the SSS currently has this with part-time National 
Guard and Reserve officers, Congress created Selective Service to be 
the independent, civilian buffer between the end user of conscripts, 
DOD, and American society. This approach has been working for over 69 
years. But I do not believe that it is appropriate for military 
personnel to occupy decision-making positions; these ought to be 
civilian.
                  coordination with secondary schools
    Question. The SSS has cultivated ties with organizations 
representing secondary school principals and counselors and community 
organizations in an effort to ensure knowledge of the requirements of 
law and voluntary compliance.
    What Selective Service programs exist to inform and influence 
parents, teachers, and other organizations regarding the requirement to 
register with the SSS, and how widespread are these programs?
    Answer. SSS is already reaching out to influencers, schools, young 
men themselves, and other groups. Some are national in scope, such as 
radio Public Service Announcements to all the major media markets, high 
school kits to volunteer Selective Service registrars in 18,051 
schools, and awareness materials to professional associations which 
deal with youth: National Association of Secondary School Principals, 
National School Boards Association, American Association of Collegiate 
Registrars and Admissions Officers, and the National Association of 
Financial Aid Administrators. Examples of national influencer groups 
include: The League of United Latin American Citizens, National Urban 
League, Organization of Chinese Americans, and the National Congress of 
American Indians. Additionally, several programs focus on local or 
regional communities, such as YMCAs, local ethnic media, immigration 
services organizations, and others. These local efforts are 
concentrated in areas of low registration compliance. Finally Selective 
Service has an extensive network of 10,000 civilian Board Members who 
are ambassadors for our programs in virtually every county in America.
    Question. What is your understanding of the level of voluntary 
participation by secondary schools in assisting the Selective Service 
in achieving compliance by male students?
    Answer. The Nation's secondary schools are supportive. The 
Selective Service registrars in 18,051 high schools are volunteer staff 
or faculty members who distribute SSS awareness materials, approach 
young men directly to register, and send them to the library to 
register on the Internet at www.sss.gov. Today, SSS has 87 percent of 
the Nation's high schools participating with registrars.
    Question. If confirmed, would you recommend imposing legal 
obligations on school systems that received Federal funding to assist 
in overcoming ignorance of the law and apathy toward compliance?
    Answer. There is no doubt that a legal mandate would foster greater 
registrations, however, it might be perceived as the Government being 
too heavy handed. I believe that the programs already in place at SSS 
are working, and improvement will come as more and more States adopt 
driver's license legislation supporting the Federal registration law. 
But registration awareness remains a challenge and has to be 
continuously evaluated. If confirmed, this will be one of my 
priorities.
                   assistance to military recruiting
    Question. What programs, if any, does the SSS have in place to 
assist military recruiting?
    Answer. The SSS is assisting military recruiting by placing 
information about military opportunities available in all Active and 
Reserve components in its registration acknowledgments. These are 
mailed to more than 188,000 men each month. So, DOD piggybacks on a 
routine SSS mailing. One very big selling point is the fact that SSS 
names and addresses are the most accurate to be found anywhere because 
they are recently submitted by the men themselves. Therefore, there is 
no wasted postage to contact them. DOD expressed its satisfaction by 
replacing its previous joint program with the SSS mailing.
    Question. What are your views and recommendations about additional 
methods the SSS might use in assisting in recruiting efforts?
    Answer. Conceptually, there should be additional ways that SSS 
might aid in this area if we put our heads together. However, all would 
involve a change in law. Some would be seen as aggressive. For example, 
if reenlistment rates or enlistments themselves fall in the Reserve 
components as a result of many protracted deployments, SSS might draft 
exclusively for them. A variation of this could be a National Guard and 
Reserve draft, in which the military person completes his basic and 
advanced training on Active Duty, then performs a full-time homeland 
security mission in the United States for a period of time, followed by 
a part-time assignment in a Guard or Reserve unit. The Nation is 
definitely not at this point currently; and I am sure DOD remains 
satisfied with the current arrangement only.
    Question. What are your views and recommendations about initiatives 
DOD might implement to assist the SSS in achieving higher compliance 
rates?
    Answer. I cannot think of anything additional that DOD might do for 
the SSS to achieve higher registration compliance. The Department 
already provides SSS its commercially-developed recruiting list and has 
given full-page ad space in one of its publications. Additionally, each 
Service ensures a new recruit is registered with Selective Service or 
registers him through the enlistment contract as he processes into the 
military. So DOD is already helping the SSS.
                       state by state compliance
    Question. For years the SSS has issued ``report cards'' by State 
measuring the percentage of eligible men turning 20 who have registered 
in accordance with the law.
    What programs and requirements used by States have proven most 
successful in achieving above average compliance rates?
    Answer. The two most successful programs at the State level which 
foster registration compliance are State driver's license legislation 
and laws which parallel the Federal Solomon and Thurmond amendments. 
Driver's license legislation links a driver's permit, license, license 
renewal, and State ID card to registering by means of the license 
application or submitting one's Selective Service number. The SSS now 
has 37 States, 3 Territories, and the District of Columbia 
participating. This is a wonderful source of registrations because 
every young man wants a license as soon as he can get it. The other 
great source of registrations is State law which links a man's 
eligibility for State-funded higher education benefits and State jobs 
to the Federal registration requirement. To date, 21 States and 
Territories have enacted both of these laws.
    Question. What recommendations, if any, do you have for legislation 
or for new programs at both the Federal and State level, for increasing 
compliance levels nationwide?
    Answer. At the Federal level, I currently see no need for new or 
adjusted legislation. However, we hope that at the State level driver's 
license legislation might eventually include all 50 States and every 
U.S. territory.
    Question. In your view, is the current budget of the SSS sufficient 
to prevent declines in compliance rates?
    Answer. The past couple of years' worth of slippage in compliance 
rates is really due to changes in priorities for resources at SSS, not 
the lack of resources themselves. I think that SSS knows what works and 
what does not in registration compliance. If confirmed, I intend to do 
an assessment of the current needs of the SSS.
                incentives to individuals for compliance
    Question. Selective Service registration currently is a requirement 
for a number of opportunities, including Federal student loans, job 
training, employment, and U.S. citizenship.
    In your view, is it appropriate to require registration with the 
SSS as a prerequisite for these Federal programs?
    Answer. Yes. Together with Congress and most State legislatures, I 
believe that it is not too much to ask men seeking a government benefit 
or opportunity to be in compliance with the law.
    Question. Are there any additional incentives that you consider 
appropriate to encourage more young men to register in a timely manner?
    Answer. I believe that SSS has the bases covered. From its point of 
view, the one that needs to be expanded, the one that is the most 
productive source of registrations is driver's license legislation. But 
this is dependent upon the wishes of the 10 States that have not yet 
enacted such legislation.
              performance of the selective service system
    Question. Past Directors of Selective Service have indicated that 
the address information of Selective Service registrants is accurate 
because of provisions for voluntary submission of changes and through 
reliance on the U.S. Postal Service's National Change of Address 
system.
    What is your estimate of the current accuracy of the address 
information of Selective Service registrants in the prime induction 
group?
    Answer. It is highly accurate. Actual mailings average over a 97 
percent successful contact rate.
    Question. What additional steps is the SSS taking to ensure the 
accuracy of address information?
    Answer. Use of the Postal National Change of Address System is 
supplemented with changes provided by the registrant himself from our 
acknowledgment mailing to him at his residence, through changes a 
registrant mails in to the SSS using a card at any Post Office, from 
changes he provides by telephone, and with address updates he supplies 
on the Internet. So our procedures are working.
                         military conscription
    Question. The demands placed on our military forces over the past 8 
years have led to calls by some to reinstate the draft. Legislative 
proposals have been introduced in the Senate and the House of 
Representatives that would require all young men and women in the 
United States to perform a period of military service or a period of 
civilian service in furtherance of the national defense and homeland 
security.
    What are your views on reinstating the draft to support the current 
wars?
    Answer. I see Selective Service as a service organization and, as 
such, it does not make policy; it responds to and implements policy. 
Policymaking is the realm of this committee and the administration. If 
confirmed, it would be my job to lead the Agency in conducting a 
timely, fair, and equitable draft if Congress and the President so 
direct. It would not be within my purview to determine when and if such 
a draft is necessary.
    Question. Women now make up a significant portion of our military, 
and their service has been invaluable. In your opinion, should women be 
required to register for Selective Service?
    Answer. Since the founding of the Nation, the United States has 
never drafted women. To do so would require presidential policy and 
congressional lawmaking decisions. The primary customer, DOD, has taken 
the position that there is no military necessity to register, let 
alone, draft females, especially since a general draft would be 
intended to replace combat casualties and women can volunteer. As a 
matter of longstanding law and policy, the Nation continues to exclude 
women from front-line, ground combat assignments. If confirmed, it 
would be my job to lead the Agency in conducting a timely, fair, and 
equitable draft if Congress and the President so direct. It would not 
be within my purview to determine whether registration should be 
expanded to include women.
    Question. Are there any circumstances under which you would 
recommend reinstating the draft? If so, what are these circumstances?
    Answer. If confirmed, it would be my job to lead the Agency in 
conducting a timely, fair, and equitable draft if Congress and the 
President so direct. It would not be within my purview to determine 
when and if such a draft is necessary. Historically the Nation's 
policymakers have considered a draft when confronted with very serious 
threats from a hostile adversary or group of adversaries, or if a 
conflict was to be protracted over several years and volunteers were 
too few, or if there appeared to be no other solution to filling 
critical vacancies in the Armed Forces. This call belongs to others.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Absolutely. I see it as a matter of integrity and principle 
that the Agency Head be the facilitator between Selective Service and 
Congress in an ongoing dialogue. I have mentioned public awareness of 
the registration requirement, but the other type of awareness is Agency 
awareness by the oversight committees. This can only be achieved if I 
am responsive; if confirmed, I intend to be responsive.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Director of Selective 
Service?
    Answer. If confirmed, I envision my job as Director to be the lead 
in the exchange of information between the committee and the SSS. 
Selective Service is a public agency doing the public's business. It 
can only retain its program credibility if what it does is open to 
public view and congressional scrutiny.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I assure you that, if confirmed, I and Selective Service 
will be forthright and responsive in any communications to or from a 
congressional committee.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, if confirmed I shall provide documents in a timely 
manner and will also consult if there is any delay or denial of 
documents.
                                 ______
                                 
    [The nomination reference of Lawrence G. Romo follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 28, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Lawrence G. Romo, of Texas, to be Director of the Selective 
Service, vice William A. Chatfield, resigned.
                                 ______
                                 
    [The biographical sketch of Lawrence G. Romo, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Lawrence G. Romo
    Lawrence G. Romo, Lieutenant Colonel USAFR (Retired), is the 
current Soldier and Family Assistance Program Manager for the U.S. Army 
5th Recruiting Brigade, responsible for the family programs of seven 
Recruiting Battalions in a multi-State area. As an integral part of the 
Team Well-Being Program, he ensures enhanced wellness of soldiers and 
family members. Further, he is an Admissions Liaison Officer for the 
U.S. Air Force Academy, having performed this function for 29 years as 
both an additional and primary military duty. Since 1988, Mr. Romo has 
served annually on various Congressional Service Academies Nomination 
Selection Panels.
    Prior to these duties, he served in various U.S. Air Force 
assignments both on Active Duty and in the Reserve. He served as a USAF 
Academy Admissions Advisor, in various positions supporting the 
operation of the Minuteman Missile Weapon and Launch System, in 
Training Operations, and as an Air Transportation Officer. Upon 
retiring from the U.S. Air Force Reserve, Mr. Romo was the USAF Academy 
Liaison Officer Director for South Texas.
    He joined the Federal Civil Service in 1987 serving from 1987 until 
1992 as an item manager for the Directorate of Special Weapons, and 
from 1992 through 1999, he was the Transition Assistance Program 
Specialist at Kelly Air Force Base.
    Mr. Romo is also the Chairman of Bexar County Veterans Committee 
and a member of the American Legion, American GI Forum, Association of 
U.S. Army, and the Military Officers Association of America. Currently, 
he serves as Chairman of the San Antonio Commission for Children and 
Families for the City of San Antonio, TX. He earned his Bachelor of 
Science degree from the USAF Academy and a Master of Education degree 
from Montana State University-Northern (formerly Northern Montana 
College).
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lawrence G. 
Romo in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Lawrence Guzman Romo, Nickname: Larry.

    2. Position to which nominated:
    Selective Service System Director.

    3. Date of nomination:
    October 28, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 13, 1956; San Antonio, TX.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Birgit Romo (Maiden Name: Haase).

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    USAF Academy, Attendance dates: July 1974-May 1978, Bachelor of 
Science Degree awarded May 1978.
    Northern Montana College (now called Montana State University-
Northern), March 1981-May 1983, Masters of Education Degree awarded 
June 1983.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    09/09 to Present - Soldier Family Assistance Program Manager, 5th 
Recruiting Brigade, 2503 Dunstan Rd, Fort Sam Houston, TX. Administer a 
variety of social service type programs for U.S. Army Recruiting 
Command (USAREC) soldiers and family members for seven battalions in a 
multi-State area.
    09/99 to 09/08 - Soldier Family Assistance Program Manager, HQ San 
Antonio Recruiting Battalion, 1265 Buck Rd, Suite SA, Fort Sam Houston, 
TX; Administer a variety of social service type programs for over 250 
U.S. Army Recruiting Command (USAREC) soldiers and family members in 
south and central Texas.
    05/98 to Present - USAF Admissions Liaison Officer, hours per week: 
4; part-time, LTC (Ret) USAF Reserves, 2304 Cadet Road, USAF Academy, 
CO. Serve as a volunteer Air Force Admissions Liaison Officer working 
with and interviewing students parents, civic leaders in areas cities/
towns, high schools and junior colleges on obtaining USAF Academy/
AFROTC College scholarship opportunities information.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Commission for Children and Families, Appointed by Councilwoman 
Delicia Herrera July 2007 (est.)-Present
    Bexar County Veterans Advisory Committee, Appointed by County 
Commissioner Sergio Rodriguez, Aug. 2006-Present
    Served on City of San Antonio Bond Advisory Committee, Appointed by 
Councilwoman Delicia Herrera, Sep. 2007 (est.)
    Served on City of San Antonio Police Chief Selection Advisory 
Committee, Appointed by Councilwoman Delicia Herrera, Feb. 2006 (est.)
    Served on City of San Antonio District 6 Parks and Recreation 
Committee, Appointed by Councilman Enrique Barrera, Oct. 2001 (est.)
    Served on Initial Base Redevelopment Committee for Reuse of Kelly 
AFB, 1998 (est.), appointed by Kelly AFB and San Antonio City Council
    Serve as a Volunteer USAF Admissions Liaison Officer, May 2006-
Present
    Served as a USAF Reserves Officer, as the USAF Admissions Liaison 
Officer Director, Deputy Director, May 1998-Apr. 2006
    Served as a USAF Reserves Officer, as an Air Transportation 
Officer, 433 Airlift Wing and a Additional Duty USAF Admissions Liaison 
Officer, Feb. 1986-Apr. 1998
    Served as an Active Duty USAF Officer, as a Deputy Commander for 
Operations and Training, USAF Basics Military Training School, July 
1984-Jan. 1986
    Served as an Active Duty USAF Officer in Minuteman Missile 
Operations positions as a Codes Controller, Combat Crew Flight 
Commander, Combat Crew Commander and Combat Crew Deputy Commander, Apr. 
1980-June 1984
    Served as an Active Duty USAF Officer, USAF Training programs for 
Pilot and Minuteman Missile Operations, July 1979-Mar. 1980
    Served as an Active Duty USAF Officer, as a USAF Academy Minority 
Affairs Admissions Advisor, June 1978-June 1979

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Wood Glen Homeowners Association
    Alamo Silver Wings Airborne Association

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Chairman, City of San Antonio Commission for Children and Families, 
City Commission, June 2007-Present
    Chairman, Bexar County Veterans Advisory Committee, County Board/
Committee, June 2006-Present
    Member, American Legion Post #2, Veterans Service Organization and 
Nonprofit, June 2001-Present
    2nd Vice Commander, American Legion Post #2, Veterans Service 
Organization and Nonprofit, June 2007-May 2008
    Commissioner, Fiesta San Antonio Commission, Event Organizing 
Nonprofit, 1984-2004
    Member, Fiesta San Antonio Commission, Event Organizing Nonprofit, 
1984-Present
    Member, Beethoven Maennerchor, Social and Nonprofit, 1998-Present
    Member, North San Antonio Hills Lions Club, Service Organization 
and Nonprofit, 2002-Present
    Member, Knights of Columbus, Service Organization and Nonprofit, 
2004-Present
    Member, American GI Forum, Veterans Service and Nonprofit, 2001-
Present
    Member, Military Office Association of America (MOAA), Veterans 
Service Organization and Nonprofit 2007-Present
    Member, USAF Academy Association of Graduates, University Alumni 
Group and Nonprofit, 1978-Present
    Member, Association of the U.S. Army, Military/Veterans Service 
Organization, 2007-Present
    Member, Regional Clean Air and Water, Civic, 2004-Present
    President, Wood Glen Homeowners Association, Not for Profit, 2001-
Oct. 2009
    Member, Alamo Silver Wings Airborne Association, Military/Veterans 
Service Organization, 2004-Present.
    Member, AARP, Seniors Advocacy, 2006-Present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Bexar County Democratic Party Precinct Chair, May 2003 (est.)-
Present
    Candidate, City Council, San Antonio District 6, May 2001 and May 
2005
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Chairman, Texas Democratic Veterans, Political Caucus Group, Oct. 
2005-Oct. 2009
    Precinct Chairman/Advisor, Bexar County Democratic Party Central 
Executive Committee, Political, May 2000-Present
    GLBT Allies Member, Stonewall Democrats (San Antonio), Political 
Party Advocacy Group, 2006 (est.)-Present
    Member, Northwest Democrats (Bexar County), Political Party 
Advocacy Group, 2001-Present
    Member, Veterans for John Kerry, Campaign Organization, 2004
    Member, Mission Democrats (Bexar County), Political Party Advocacy 
Group, 2008-Present
    Treasurer, Frances Carnot for State Representative, Campaign 
Organization, 2008
    Member, National Veterans and Hispanic Steering Committees for 
Hillary Clinton, Campaign Organization, Oct. 2007-May 2008
    Southwest Regional Coordinator, Veterans for Obama, Campaign 
Organization, June 2008-Nov. 2008
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2007-2008 - Contributed $561 to the Hillary Clinton for President 
Campaign, I estimate three separate $100 checks during this time period 
with the other amounts each under $100 for a total of $561.
    2008 - I gave the Barack Obama for President Campaign no more than 
$150 total, probably less, during this time period with each amount 
under $100.
    2006 - Barbara Radnofsky for U.S. Senator - Estimate I gave Barbara 
Radnofskyfor U.S. Senator Campaign one check for $100 and a few other 
donations under $100 each for a total of no more than $250.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    April 1974 - USAF Academy Appointment/Scholarship
    July 1974 - National Defense Service Medal
    May 1978 - Awarded BS degree from the USAF Academy, CO
    May 1978 - Air Force Training Ribbon
    May 1980 - Promoted to First Lieutenant, USAF
    May 1980 - Combat Readiness Medal
    May 1982 - Promoted to Captain, USAF
    May 1982 - Air Force Longevity Service Award Ribbon
    May 1983 - Small Arms Expert Marksmanship Ribbon
    June 1983 - Awarded Master Education degree from Northern Montana 
College, MT
    May 1984 - USAF Squadron Officer School Graduate
    June 1984 - Air Force Outstanding Unit Award
    September 1984 - Awarded Air Force Commendation Medal
    January 1986USAF Air Command and Staff College Graduate
    May 1992 - Promoted to Major, USAF Reserves
    February 1996 - Reserve Component Service Medal
    May 1998Awarded Air Force Commendation Medal
    May 1999Promoted to Lieutenant Colonel, USAF Reserves
    February 2002USAF Air War College Graduate
    December 2002 (est.) - Awarded Air Force Meritorious Service Medal
    February 2004Selected as the U.S. Army Recruiting Command Runner-up 
Civilian Employee of the Year for 2003

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Letter to the Editor, ``Risky Bullis Business,'' San Antonio 
Express-News (July 24, 2008).
    Over the past several years I also have made several blog posts on 
the following Web sites: www.texasdemocraticveterans.org, 
latinosfortexas.com, changethecaucus.org, and burntorangereport.com.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Lawrence G. Romo.
    This 13th day of November, 2009.

    [The nomination of Lawrence G. Romo was reported to the 
Senate by Chairman Levin on December 2, 2009, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 3, 2009.]


 
 NOMINATIONS OF DOUGLAS B. WILSON TO BE ASSISTANT SECRETARY OF DEFENSE 
 OF PUBLIC AFFAIRS; DR. MALCOLM ROSS O'NEILL TO BE ASSISTANT SECRETARY 
  OF THE ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY; MARY SALLY 
MATIELLA TO BE ASSISTANT SECRETARY OF THE ARMY FOR FINANCIAL MANAGEMENT 
 AND COMPTROLLER; PAUL LUIS OOSTBURG SANZ TO BE GENERAL COUNSEL OF THE 
    DEPARTMENT OF THE NAVY; JACKALYNE PFANNENSTIEL TO BE ASSISTANT 
SECRETARY OF THE NAVY FOR INSTALLATIONS AND ENVIRONMENT; AND DR. DONALD 
   L. COOK TO BE DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL 
                    NUCLEAR SECURITY ADMINISTRATION

                              ----------                              


                      THURSDAY, DECEMBER 17, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Burris, Thune, 
and Burr.
    Also present: Senator Shaheen.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Jessica L. Kingston, research assistant; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Roy F. 
Phillips, professional staff member; Arun A. Seraphin, 
professional staff member; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Daniel A. Lerner, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Kevin A. Cronin and Paul J. 
Hubbard.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Nick Ikeda, assistant to Senator 
Akaka; Greta Lundeberg and Yariv Pierce, assistants to Senator 
Bill Nelson; Patrick Hayes, assistant to Senator Bayh; Gordon 
I. Peterson, assistant to Senator Webb; Lindsay Kavanaugh, 
assistant to Senator Begich; Roosevelt Barfield, assistant to 
Senator Burris; Jason Van Beek, assistant to Senator Thune; 
Brian W. Walsh, assistant to Senator LeMieux; and Chris Joyner, 
assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Douglas Wilson to be Assistant Secretary of Defense for Public 
Affairs; Malcolm Ross O'Neill to be Assistant Secretary of the 
Army for Acquisition, Logistics, and Technology; Mary Sally 
Matiella to be Assistant Secretary of the Army for Financial 
Management and Comptroller; Paul Luis Oostburg Sanz to be 
General Counsel of the Department of the Navy; Jackalyne 
Pfannenstiel to be Assistant Secretary of the Navy for 
Installations and Environment; and Donald Cook to be Deputy 
Administrator for Defense Programs of the National Nuclear 
Security Administration (NNSA).
    We welcome all of our nominees and their families to 
today's hearing. We appreciate the sacrifices that our nominees 
are willing to make to serve their country, but their families 
also deserve our gratitude for the support that they provide, 
which is essential to the success of these officials.
    All of today's nominees are well qualified for the 
positions to which they've been nominated.
    Mr. Wilson has capped a distinguished career in public 
service by serving as Deputy Assistant Secretary of Defense for 
Public Affairs from 1997 to 2001. He is currently the Executive 
Vice President of the Howard Gilman Foundation, President of 
the Leaders Project, and Chairman of the Board of Directors of 
the Public Diplomacy Collaborative at Harvard University. Mr. 
Wilson's family moved from Michigan to Arizona more than 50 
years ago, but enough time has passed so we can forgive that. 
[Laughter.]
    Dr. O'Neill has served in the U.S. Army, rising to the 
command of the Army Laboratory Command, and has served as 
director of the Ballistic Missile Defense Organization. He went 
on to work as Vice President and Chief Technical Officer of 
Lockheed Martin from 2000 to 2006. He is currently the Chairman 
of the Board on Army Science and Technology of the National 
Academies.
    Ms. Matiella has worked for 29 years in accounting and 
budget positions with the Army Air Force Defense Finance and 
Accounting Service in the Office of the Secretary of Defense. 
She has also served as Chief Financial Officer for the Forest 
Service, and Assistant Chief Financial Officer for accounting 
at the Department of Housing and Urban Development.
    Ms. Pfannenstiel served as chairman of the State of 
California Energy Commission from 2004 until 2009. She also 
chaired the Governor's Climate Action Team Subgroup on Energy 
and Land Use, and worked on the creation of California's low 
carbon fuel standards.
    Dr. Cook worked at Sandia National Laboratories for 28 
years, rising to serve as program director for Sandia's 
Infrastructure Program and Security Technologies Program before 
leaving to become the managing director of the Atomic Weapons 
Establishment in the United Kingdom from 2006 to 2009. Dr. Cook 
is a graduate, I proudly say, of the University of Michigan.
    Finally, Mr. Oostburg served as chief minority counsel for 
the House Committee on International Relations from 2001 to 
2006, when he took his current position as general counsel of 
the House Armed Services Committee (HASC). We've come to know 
Mr. Oostburg from our conferences with the House over the last 
3 years. We appreciate his work on a series of very difficult 
issues, including the Military Commissions Act of 2009 and the 
terrorism exception to the Foreign Sovereign Immunities Act.
    We will miss your presence in our conferences, but at least 
we still have Congressman Skelton. That will make up for it. We 
look forward to working with you in your new capacity.
    Now, if confirmed, our nominees will all play critical 
roles in helping to manage the Department of Defense (DOD) and 
the Department of Energy, at a time when we are fighting two 
wars and when we face a wide array of difficult acquisition, 
management, and financial challenges.
    We look forward to the testimony of our nominees and to 
their speedy confirmation.
    Now, before I call on our dear friend Congressman Skelton 
for his introduction, I'm going to ask our nominees standard 
questions. You can each answer, if you would, at the same time, 
simultaneously.
    The first question. Have you adhered to applicable laws and 
regulations governing conflicts of interest?
    [All six witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All six witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All six witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All six witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All six witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee?
    [All six witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents?
    [All six witnesses answered in the affirmative.]
    Chairman Skelton, we're delighted, again, to see you here. 
I want you to know that this is the first time this committee--
perhaps any committee--has met in this reconstituted room. I 
just hope that you will not report to the House the magnificent 
digs that we in the Senate now have----[Laughter.]
    --because we know that there would be a claim, at our next 
conference, for some kind of funding for some new House 
committee room. So, if you could just keep this fairly to 
yourself, we would very much appreciate it.
    We're always delighted to see you, Ike.
    Chairman Skelton.

  STATEMENT OF HON. IKE SKELTON, U.S. REPRESENTATIVE FROM THE 
                       STATE OF MISSOURI

    Mr. Skelton. Thank you very much, Chairman Levin.
    This is a bittersweet moment for me. The barbershop song, 
``Wedding Bells are Breaking up that Old Gang of Mine.'' I 
could rewrite that and say, ``The Pentagon is breaking up that 
old gang of mine,'' because this will be the third person of 
the outstanding staff that we have in the HASC that will be 
going to work somewhere else, like the Pentagon.
    Chairman Levin. Is there some strategic purpose here, to 
take over the Pentagon?
    Mr. Skelton. I didn't think you'd find out. [Laughter.]
    Paul Oostburg is an outstanding lawyer. This comes from my 
being a country lawyer, and having grown up around lawyers, and 
knowing them my entire life. He is as good as they come. 
Undergraduate at Georgetown, Harvard Law School, a master's 
degree at Princeton, he's extremely well educated. I think he 
spent some excellent time as clerk for a Federal judge in 
Puerto Rico. His ability to grasp complex issues, give sound 
advice on a myriad number of issues--he helped rewrite the 
Commissions Act that we cleaned up in the Defense bill this 
year; he also helped with detainee policy, counternarcotics, 
issues relating to U.S. Southern Command, and many other issues 
where we needed sound legal advice.
    I cannot brag on him enough. He is truly an outstanding 
human being, an outstanding lawyer, and he will make the Navy 
proud. We'll miss him. But, when you have someone that is so 
talented, that has the finest work ethic available, you can't 
help but pat him on the back and wish them well, and that's 
what I do.
    I wholeheartedly recommend him as general counsel to the 
U.S. Navy. The Navy will be all the better for it.
    Thank you.
    [The prepared statement of Representative Skelton follows:]
            Prepared Statement by Representative Ike Skelton
    Thank you, Mr. Chairman and Senator McCain.
    I'm honored to speak today in support of the nomination of Paul 
Oostburg Sanz to be the General Counsel of the U.S. Navy. Many of you, 
and certainly many of your staff members, have gotten to know Paul in 
his current position as General Counsel of the House Armed Services 
Committee.
    Paul Oostburg Sanz became General Counsel of the House Armed 
Services Committee in January 2007, just at the time I had the honor to 
begin serving as committee chairman. In the almost 3 years since, Paul 
has played a critical role in day-to-day operations of the committee 
and has also been a trusted advisor on the legal issues facing the 
Department of Defense.
    It is no exaggeration to say that Paul's ability to grasp complex 
issues, his attention to detail, and his years of experience on Capitol 
Hill were instrumental in helping our committee and Congress to achieve 
the enactment of the last three annual National Defense Authorization 
Acts.
    Our committee and Congress have particularly benefited from Paul's 
expertise on matters related to detainee policy and the Military 
Commissions Act, as well as issues related to counternarcotics, matters 
related to U.S. Southern Command, and international legal issues.
    A look at Paul's resume gives you a good idea about the breadth and 
diversity of his experience. He earned a law degree at Harvard 
University Law School and earned a Master's in Public Affairs degree 
from Princeton University.
    His international experience includes service as Peace Corps 
English teacher in Guinea-Bissau, and work in South Africa conducting 
political party training during the historic 1994 national elections. 
Paul also worked on conflict-resolution issues for the U.S. Embassy in 
Liberia, and on democracy and governance programs for the U.S. Agency 
for International Development Mission in Mozambique.
    Before coming to Capitol Hill, Paul clerked for a U.S. District 
Court Judge in Puerto Rico. From May 2001 to December 2006, Paul served 
as the Deputy Chief Counsel for the House Committee on International 
Relations, providing strategic and procedural counsel to our 
distinguished colleague, the late Congressman Tom Lantos, who at that 
time was the committee's ranking member.
    It is clear that Paul has the education, experience, and 
intellectual gifts to be an excellent General Counsel for the U.S. 
Navy. I also believe Paul has the temperament to serve our country 
exceptionally well in this position. In the time I have worked with 
Paul, he has approached every problem and every challenge thrown his 
way with a calm demeanor and rational analysis. Then he gets to work, 
and his hard work pays off.
    Paul is such a talented and decent person that I am not surprised 
he has been offered a nomination to serve this administration. The 
prospect of Paul's departure from the Hill gives me no joy, but I am 
happy that his talents have been recognized and that our country will 
continue to benefit from his service.
    I commend the Obama administration for nominating Paul Oostburg 
Sanz as the next General Counsel of the Navy, and I respectfully urge 
the Senate Armed Services Committee to recommend that the Senate 
confirm Paul's nomination as quickly as possible.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you so much, Chairman Skelton.
    We know how much that introduction means to Mr. Oostburg, 
and it means a great deal to us, that you come over here again, 
to take your time. We know that you have a schedule to meet, 
and so you, of course, are free to leave at any time you so 
choose.
    Mr. Skelton. Thank you very much.
    Chairman Levin. Thank you again, Ike.
    Our next introduction will be by a great friend of the 
Senate and all of the members of the Senate.
    Senator Shaheen.

 STATEMENT OF HON. JEANNE SHAHEEN, U.S. SENATOR FROM THE STATE 
                        OF NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Chairman Levin.
    I'm delighted to be here this morning, and appreciate your 
holding this hearing.
    I want to congratulate each of the nominees before the 
committee today, and thank you all for choosing to assume these 
very important leadership positions at Defense and Energy. I 
look forward to voting on your nominations on the floor of the 
Senate. Hopefully, we'll get that done before too long, as soon 
as we get healthcare done.
    Chairman Levin. We hope before that, actually. [Laughter.]
    Senator Shaheen. Yes. Good, yes, we do.
    I've had the opportunity, like Senator Levin, to hold a 
number of hearings in Foreign Relations for nominees, and I 
always feel like it's a wedding, because everybody's so 
pleased, and friends and family are here, and it's a wonderful 
time. Congratulations to each of you.
    I'm, really, especially proud to be here today to express 
my strong support for Doug Wilson, President Obama's nominee to 
be the new Assistant Secretary of Defense for Public Affairs at 
DOD. Doug has a distinguished 30-year career in public and 
private sectors. He has served throughout the U.S. Government 
as a diplomat, legislative advisor, foreign policy expert, and 
communications strategist, and he will bring invaluable skills, 
deep knowledge, extraordinary poise, and a strong character to 
a very important and challenging position at the Defense 
Department.
    I've had the pleasure of knowing Doug for over 25 years. We 
first met in 1983, when both of us were working for former 
Senator Gary Hart, trying to get him elected President. Doug 
had served as Senator Hart's chief foreign policy advisor, and 
became his deputy campaign manager during that 1984 
presidential campaign.
    Doug is a graduate of Stanford University and the Fletcher 
School of Law and Diplomacy, and began his career in the U.S. 
Foreign Service, serving in posts throughout Europe. He went on 
to become the Director of Congressional and Intergovernmental 
Affairs at the U.S. Information Agency, and later, the senior 
advisor there. He served in DOD, under President Bill Clinton 
and Secretary William Cohen, as Deputy Assistant Secretary of 
Defense for Public Affairs, an experience which obviously will 
serve him very well in this new position.
    During his time at the Pentagon, Doug coordinated strategic 
communications and public relations for the Department on 
critical defense issues, including defense reform, base 
closures, and North Atlantic Treaty Organization (NATO) 
expansion. His impressive tenure at DOD twice earned him the 
DOD Medal for Distinguished Public Service, the Pentagon's most 
prestigious civilian honor.
    Doug returns to public service from the nongovernmental 
community, where he serves as the Executive Vice President of 
the Howard Gilman Foundation. In that capacity, he has managed 
the charitable organization's domestic and international policy 
programs. He also co-founded, with former Defense Secretary 
Cohen, the Leaders Project, which identifies and brings 
together successor generation leaders from around the world to 
discuss key international and security issues.
    I'm also proud to recognize Doug's tenure as the Chairman 
of the Board of Directors at Harvard's Public Diplomacy 
Collaborative. As the former Director of Harvard's Institute of 
Politics, I like to mention that whenever possible.
    Mr. Chairman, today DOD faces some of the most difficult 
and complex challenges in our history. We're at war in two 
countries, our men and women in uniform and their families face 
multiple deployments and increasing physical and mental strain. 
As we know, our financial resources are constrained. But yet, 
our country continues to underpin security and stability around 
the globe. We need the very best people we are able to get, to 
assume these critical challenges.
    I am so pleased to be here to give my unqualified 
endorsement for Doug Wilson as a nominee to this new position. 
I hope he will move very quickly through the committee and 
through the Senate.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Shaheen follows:]
              Prepared Statement by Senator Jeanne Shaheen
    Chairman Levin, Ranking Member McCain, and all of my colleagues on 
the Senate Armed Services Committee, thank you for holding this hearing 
to consider a number of important nominees for critical positions in 
our Department of Defense (DOD).
    During my time in the Senate, I have had the pleasure of chairing a 
number of nomination hearings for the Senate Foreign Relations 
Committee, and I always enjoy the opportunity to participate in these 
events . . . to see the families and friends that have supported each 
of the nominees . . . to hear their unique backgrounds and experiences 
. . . and to listen to their optimism and hope on taking on these new 
and exciting challenges.
    I want to congratulate each of the nominees before the committee 
today and thank you all for choosing to take on these important 
leadership roles. I look forward to voting on your nominations on the 
Senate floor and to working with you in the coming years.
    I am proud to be here today to express my strong support for 
Douglas Wilson, President Obama's nominee to be the new Assistant 
Secretary of Defense for Public Affairs at DOD.
    Doug has a distinguished 30 year career in the public and private 
sectors, and has served throughout the U.S. Government as a diplomat, 
legislative advisor, foreign policy expert, and communications 
strategist. He will bring invaluable skills, deep knowledge, 
extraordinary poise, and a strong character to an important and 
challenging position at DOD.
    I have had the great pleasure of knowing Doug for over 25 years. I 
first met him in 1984 during the Presidential campaign of then-Senator 
Gary Hart. Doug had served as Senator Hart's Chief Foreign Policy 
Advisor and became his Deputy Campaign Manager during his 1984 
Presidential campaign.
    A graduate of Stanford University and the Fletcher School of Law 
and Diplomacy, Doug began his career in the U.S. Foreign Service, 
serving in posts throughout Europe. He went on to become the Director 
of Congressional and Intergovernmental Affairs at the U.S. Information 
Agency (USIA) and later the Senior Advisor to the Director of USIA.
    Doug served in DOD under President Bill Clinton and Secretary 
William Cohen as Deputy Assistant Secretary of Defense for Public 
Affairs, an experience which will serve him well as he takes on this 
new challenge. During his time in the Pentagon, Doug coordinated 
strategic communications and public relations for the Department on 
critical defense issues including defense reform, base closures, and 
NATO expansion. His impressive tenure at DOD twice earned him the DOD 
Medal for Distinguished Public Service, the Pentagon's most prestigious 
civilian honor.
    Doug would return to public service from the nongovernmental 
community, where he serves as the Executive Vice President of the 
Howard Gilman Foundation. In that capacity, he manages the charitable 
organization's domestic and international policy programs. He also 
cofounded, with former Defense Secretary Cohen, The Leaders Project 
which identifies and brings together successor generation leaders from 
around the world to discuss key international and security issues.
    As a former Director of Harvard University's Institute of Politics, 
I am also proud to recognize Doug's tenure as the Chairman of the Board 
of Directors at Harvard's Public Diplomacy Collaborative.
    Mr. Chairman, today, DOD faces some of the most difficult and 
complex challenges in its history. We are at war in two countries. Our 
men and women in uniform and their families face multiple deployments 
and increasing physical and mental strain. Our resources are 
constrained, yet, our country continues to underpin security and 
stability around the globe. We need our best people in place if we are 
to meet these critical challenges.
    I am fully confident that Douglas Wilson's lifetime of 
distinguished service, valuable experiences, and impressive successes 
will serve him well as the Assistant Secretary of Defense for Public 
Affairs. I fully support his nomination and hope that the committee 
will favorably report him to the full Senate for expeditious 
consideration.
    I want to commend the President for an excellent choice and thank 
the committee once again for holding this hearing today. 
Congratulations to you all.

    Chairman Levin. Thank you so much, Senator Shaheen. We 
greatly appreciate your being with us, and I know how much Mr. 
Wilson does, as well. Thank you.
    We are now going to ask our witnesses to make their opening 
statements. Please feel free to introduce any family members or 
other friends that you might have with you today. We know how 
important it is that you have the support of family and 
friends, as I mentioned before.
    We'll start with you, Mr. Wilson.

    STATEMENT OF DOUGLAS B. WILSON, NOMINEE TO BE ASSISTANT 
            SECRETARY OF DEFENSE FOR PUBLIC AFFAIRS

    Mr. Wilson. Thank you very much, Mr. Chairman.
    I very much appreciate the opportunity to come before you 
and this committee today to discuss the position of Assistant 
Secretary of Defense for Public Affairs, for which President 
Obama has nominated me for your consideration.
    I'm grateful to the President for this nomination. I'm 
grateful, as well, to Secretary Gates and to Deputy Defense 
Secretary Lynn for their confidence in me in support of this 
nomination.
    Senator Jeanne Shaheen has been a friend for well over 25 
years. She is one of the most decent and able people I have 
ever met in public life, and I'm greatly honored that she would 
take time from a very busy schedule to have appeared here today 
on my behalf.
    Mr. Chairman, I know that you and many of your colleagues 
will remember the late Doc Cook who was the former head of 
Washington Headquarters Services, known as ``the Mayor of the 
Pentagon.'' Doc used to always say to us that when you see a 
frog on top of a fencepost, you know that he had help getting 
there. My family and friends have helped this frog, throughout 
my life. I'm very lucky to have several here today, including 
my partner of 15 years. Neither my sister from California nor 
my parents, who have lived for over 60 years in Tucson, AZ, 
where I grew up and where our family home remains, were able to 
be here today, but I know they share my pride in being 
nominated for this position.
    Mr. Chairman, I am the son of a U.S. veteran. My father, 
Charles Wilson, as we discussed, is himself the son of a Jewish 
delicatessen owner from Detroit. It was Dexter Street, by the 
way.
    Chairman Levin. It was on Dexter.
    Mr. Wilson. Yes, sir.
    Chairman Levin. What was the name?
    Mr. Wilson. It was Wilson's Deli, on Dexter.
    Chairman Levin. Oh, it was Wilson's. All right.
    Mr. Wilson. Yes, sir.
    Chairman Levin. Thank you.
    Mr. Wilson. Thank you, sir.
    He is one of the last surviving members of the military 
team that participated in the battle of Iwo Jima in World War 
II. Last year, he shared his Iwo Jima diary with me. In that 
diary his language is sparse and direct, and it deals with the 
details on which he needed to focus to provide and care for the 
Navy Seabee platoon he commanded. It was a very strong and very 
personal reminder of the duties and obligations to our men and 
women in uniform that all who are privileged enough to serve in 
a leadership position at the Pentagon must carry with them at 
all times.
    The position of Assistant Secretary of Defense for Public 
Affairs has been filled by some truly outstanding individuals, 
including Pete Williams and the late Ken Bacon. If confirmed, I 
will strive to live up to the standards of professionalism, 
credibility, fairness, accuracy, and trust that they set in 
supporting our men and women in uniform and in dealing with 
those who report on their activities.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Mr. Wilson.
    Dr. O'Neill, you're next.

STATEMENT OF DR. MALCOLM ROSS O'NEILL, NOMINEE TO BE ASSISTANT 
     SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, AND 
                           TECHNOLOGY

    Dr. O'Neill. Yes, sir.
    Mr. Chairman and members of the Senate Armed Services 
Committee, thank you for the opportunity to appear before you 
today as a nominee for the position of Assistant Secretary of 
the Army for Acquisition, Logistics, and Technology.
    I'd like to take a moment to introduce my wonderful wife, 
Judy, who is sitting behind me; my beautiful daughter, Bonnie 
Long, who is sitting next to Judy; her husband, Brad; and my 
precious grandchildren, Charles Wesley, Mary Kate, and John 
Gregory Long. My son, John Hai, his wife, Becky, and his two 
small children are in San Diego, where I hope they are watching 
us on video.
    Today, I seek your consent to my serving as an Assistant 
Secretary of the Army. I understand that you will evaluate my 
qualifications and potential to fulfill the requirements of the 
job. I am ready to contribute experience, dedication, ethical 
discipline, and hopefully a few new ideas to serve in this 
position.
    I'm certainly humbled by the challenge to our Nation and 
its leadership posed by the multifaceted needs for such a 
position. I'm aware that the job is a difficult one, and that 
many issues can be identified in each functional area.
    These are very hard times economically, so it's even more 
important today to manage our acquisition systems very 
carefully. The Army must obtain maximum value for its 
investment. Experience is vital, since lessons learned often 
lead to success. I've been in the acquisition, logistics, and 
technology business for 43 years, and I served 34 years on 
Active Duty as an Army officer, both in peacetime and combat.
    My first acquisition job was on the source selection team 
for what was called SAM-D, which is now called the Patriot 
Missile System. My most recent technology job was chairing the 
Board on Army Science and Technology for the National Academies 
and the National Research Council.
    In 1991, I was selected as the first Director of the Army 
Acquisition Corps, and I became convinced that the key to 
program management success was people. I still believe that 
today. I also believe that technology can be the difference-
maker on the battlefield. For this reason, the interaction 
between the technologists and the warfighter must be almost 
continuous. Army leadership must aggressively pursue future 
system options and stimulate an information exchange between 
warfighters, industry, academia, and Army technologists.
    I also believe that logistics demands intensive management 
and close cooperation between operational forces and the 
sustaining base.
    Our soldiers, their families, other Americans, our friends 
worldwide, and our national leaders expect the Army's best 
effort. If confirmed, I'll use my training and experience in 
each functional area to help keep the Army strong, up to date, 
efficient, and effective. I believe that I possess the 
background, experience, and commitment necessary to perform the 
functions of the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology.
    Senator, I look forward to your comments and questions.
    Chairman Levin. Thank you so much, Dr. O'Neill.
    Ms. Matiella.

   STATEMENT OF MARY SALLY MATIELLA, NOMINEE TO BE ASSISTANT 
 SECRETARY OF THE ARMY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Ms. Matiella. Mr. Chairman, distinguished members of the 
committee, it is an honor and a privilege to appear before you 
today as President Obama's nominee for Assistant Secretary of 
the Army for Financial Management and Comptroller. I am truly 
humbled and deeply honored by the President's nomination and by 
Secretary McHugh's support of my nomination. Thank you so much 
for the opportunity to be here.
    Allow me to thank my family. Their love, support, and 
encouragement made it possible for me to be here today. My son, 
Frank, is here, in support of my being here. He works here in 
Washington, DC, as a proud graduate of the College of William 
and Mary, and he resides in Rosslyn. Unfortunately, my husband, 
Frank, of 34 years, and a career Air Force officer, my 
daughter, Maria Alexandra, and my son-in-law, Justin, were not 
able to be here today. I do want to say that Alexandra and 
Justin both graduated from Michigan Tech, up in Houghton, MI. 
So, I know northern Michigan pretty well. It's beautiful.
    Chairman Levin. It's already had 100 inches of snow up 
there. [Laughter.]
    Ms. Matiella. Yes. I'll stay with it, it's beautiful.
    I also want to thank my extended family: my deceased 
father, Arturo; my mother, Angelina; my sisters, Joanna and 
Josie; my brothers, Abraham, Art, and Gilbert. This extended 
family has truly supported me, my whole life.
    The Office of the Assistant Secretary of the Army for 
Financial Management and Comptroller is tackling many difficult 
challenges. There is an urgent need to develop balanced budgets 
that are supported by accurate, timely, and reliable data. If 
confirmed, I will not only draw upon my experiences, but will 
draw upon the experiences and suggestions of this committee and 
all of the staff of the Army to tackle these challenges.
    I have 29 years' experience in Federal financial 
management, both in DOD and in other Federal departments. In 
these 29 years, I've held a variety of positions: budget 
analyst for the Air Force; systems accountant for U.S. Army 
South, Director of Accounting for the Defense Finance and 
Accounting Service, accountant for the Office of the Under 
Secretary of Defense Comptroller, Chief Financial Officer for 
the U.S. Department of Agriculture Forest Service, and 
Assistant Chief Financial Officer for the Department of Housing 
and Urban Development.
    In this variety of experiences, I've obtained many lessons 
learned, and I've also seen a lot of best practices. It is the 
application of these best practices, this knowledge, that I 
hope to bring to the office of the Assistant Secretary of the 
Army for Financial Management and Comptroller. These best 
practices are what's going to help me bring, hopefully, 
improvements to the Office of Financial Management and 
Comptroller.
    In closing, I am honored to have been nominated for 
Assistant Secretary of the Army for Financial Management and 
Comptroller. If confirmed, I promise to direct all my 
experiences and abilities to tackling the Army's many financial 
management challenges.
    I look forward to addressing your concerns and questions.
    Thank you.
    Chairman Levin. Thank you Ms. Matiella.
    Mr. Oostburg.

  STATEMENT OF PAUL LUIS OOSTBURG SANZ, NOMINEE TO BE GENERAL 
             COUNSEL OF THE DEPARTMENT OF THE NAVY

    Mr. Oostburg. Thank you Mr. Chairman, and good morning, 
members of the committee.
    At first, let me just thank you for your introductory 
remarks.
    I have to truly say that, if confirmed, I will miss 
engaging with your committee through your very able staff. It's 
something that I'd truly miss.
    It is an honor and privilege to appear before you this 
morning. Let me first extend my appreciation to President 
Obama, Secretary Mabus, and Under Secretary Work for the trust 
and confidence they have placed in me with the nomination to 
serve as the 22nd General Counsel of the Department of the 
Navy.
    I also want to express my gratitude to the Honorable Ike 
Skelton, my current boss and chairman of the HASC, as well as 
to Erin Conaton, the current staff director of the committee. 
Both Chairman Skelton and Erin have been tremendous supporters 
and mentors who have allowed me the great privilege to serve 
the people and the men and women in military as my current post 
as general counsel to the HASC.
    Chairman Skelton, as many of you know, is a remarkable 
lawyer himself, and a great statesman--and from his 
introductory remarks of me, he is also very generous--which has 
made the experience of working for him, and with the 
extraordinarily talented professional staff of the committee, 
all the more rewarding. I cannot thank him and my colleagues on 
the committee enough.
    Mr. Chairman, I am joined this morning by my family. Let me 
begin with my mother, Carmen Oostburg, who has encouraged me to 
excel throughout my life, and who, as a military wife, knows 
well the importance of the cause that I'm about to and hope to 
serve. I also am joined by my sister, Carmen, my in-laws, who 
drove up from North Carolina to be here, Moselle and Pete 
Knigh--Pete, incidentally, also served in the Air Force--my 
sparkling daughter, Keira, and, of course, my bride of 7 years, 
Tonya, who is always my true north and safe harbor.
    I will be remiss if I do not also mention my brother, 
Egbert, who is a lieutenant in the Navy, and his family, Eva, 
Sebastian, Julie, Sabrina, and Jackson. They live in San Diego 
and could not make the trek today.
    Also not here, but remembered every day, is my late father 
Egbert, who joined the Air Force, soon after my siblings and I 
were born in Puerto Rico, and retired as a surgeon, after many 
years of service.
    Mr. Chairman, more than anything, I especially appreciate 
the opportunity to serve that this nomination affords. My 
several years working as general counsel on HASC, and before 
that, on the House Committee on Foreign Relations, have given 
an intimate, up-close look at the sacrifices that our sailors, 
marines, other servicemembers, and their families, make on our 
behalf every day. We all are indebted to them, and I count 
myself among the fortunate to have a chance to repay that debt, 
in a small way, with my service in a civilian capacity. I can 
think of no higher honor. It is because of their sacrifice that 
I pledge, if confirmed, not only to maintain the sterling 
reputation of the nearly 700 attorneys of the Office of the 
General Counsel for the Department of the Navy, but also, in 
cooperation with our uniformed colleagues in the Offices of the 
Navy Judge Advocate General and the Marine Corps Staff Judge 
Advocate, and under the leadership of the Secretary of the 
Navy, to lead the office in maximizing the ability of the 
Department of the Navy to defend the Nation within the law.
    Again, thank you, and I look forward to your questions.
    Chairman Levin. Thank you.
    Ms. Pfannenstiel?

 STATEMENT OF JACKALYNE PFANNENSTIEL, NOMINEE TO BE ASSISTANT 
    SECRETARY OF THE NAVY FOR INSTALLATIONS AND ENVIRONMENT

    Ms. Pfannenstiel. Thank you, Mr. Chairman and distinguished 
members of the Senate Armed Services Committee. It's an honor 
to appear before you today.
    I'm deeply grateful to President Obama for nominating me to 
this important position, and to Secretary Mabus and Under 
Secretary Work, for their support.
    Before I begin, I'd like to introduce my son, Matt Deutsch, 
and his friend, Whitney Wallace. They're both graduates of Wake 
Forest Law School and attorneys in North Carolina. I'm grateful 
that they could drive up to be with me today. My other son, 
Steven, is a sophomore at George Washington University. He had 
just returned to California, after his final exams, and was not 
able to get back here in time. With me also are my sister, 
Kathy Pratt, from Maine, and my companion, Dan Richard.
    I'm sorry my parents could not make the trip from 
Connecticut. They would have taken considerable interest and 
pride in this proceeding.
    Both of my grandfathers, as well as my father's mother, 
served in the Navy. During World War II, my father was on the 
crew of the USS Finback when that submarine rescued the future 
President, George H.W. Bush, after his plane was shot down over 
the Pacific.
    I recognize momentous challenges facing the Assistant 
Secretary of the Navy for Installations and Environment. It is 
no small task to maintain our facilities in a state of 
readiness, to preserve the quality of life for our sailors and 
marines and their families, and to meet and exceed our 
environmental obligations. Moreover, Secretary Mabus has raised 
the bar for the Department of the Navy by committing that we 
will be leaders among the Services, the Federal Government, and 
the Nation, in achieving aggressive goals for energy 
efficiency. His initiatives are tied directly to our national 
security interests, but achieving them we will have other 
benefits, including better use of limited resources and 
healthier communities. I would be honored to assist him in 
achieving these goals.
    If confirmed, I will carry out the policy directives of the 
President, Congress, the Secretary of Defense, and the 
Secretary of the Navy. My priorities would be to assure that 
the naval and marine facilities have the necessary support to 
accomplish their mission, to assist the Secretary of the Navy 
in achieving his aggressive energy goals, and to work closely 
with Members of Congress, State and local officials, and the 
public to mitigate the impact of our installations on the local 
communities.
    I look forward to working with this committee.
    Thank you.
    Chairman Levin. Thank you very much, Ms. Pfannenstiel.
    Dr. Cook.

     STATEMENT OF DR. DONALD L. COOK, NOMINEE TO BE DEPUTY 
 ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Dr. Cook. Mr. Chairman and members of the committee, I'm 
honored to be the President's nominee for the position of 
Deputy Administrator for Defense Programs at the Department of 
Energy's NNSA.
    I appreciate the confidence placed in me by Secretary Chu 
and NNSA Administrator D'Agostino.
    If confirmed, I'll work with Congress to ensure safe and 
efficient operations of the nuclear weapon complex while also 
preparing NNSA's defense programs for the future in order to 
meet the demanding challenges of the 21st century.
    Now, I'd like to introduce two family members who are with 
me today, and also thank my wife, Peggy, who could not be here, 
for her support and willingness to allow me to pursue this 
position. Peggy is in Seattle with our older daughter, Julia 
Cook Dombrowski, and our newly born granddaughter. With me are 
our younger daughter, Cynthia Cook, a member of the U.S. 
Foreign Service and currently public affairs officer with the 
U.S. Consulate in Dhahran, Saudi Arabia and our son-in-law, 
Cynthia's husband, Brad Carlson, also with the Foreign Service 
as a special agent in the Diplomatic Security Service, on 
assignment in Washington, DC.
    My entire career has been dedicated to either the U.S. or 
the United Kingdom (U.K.) nuclear deterrent programs. Up until 
my most recent assignment, this covered areas of small science, 
big science, engineering development, major construction 
projects, infrastructure projects, and security investments 
required to meet an increased threat.
    From 2006 to 2009, as I served as the Managing Director and 
the Chief Executive Officer of the Atomic Weapons Establishment 
in the United Kingdom. That assignment gave me a good 
understanding of manufacturing processes for special material 
components, qualification of weapon components and subsystems, 
assembly, transport, support and service, including 
surveillance, and, finally, decommissioning, dismantlement, 
disassembly, and disposal.
    Communication and productive interaction with the Ministry 
of Defense, the local community, the nuclear regulatory 
authorities, and the workforce of both employees and 
contractors, was important to success.
    I believe that my experience in both the United States and 
the United Kingdom, made possible through the special 
relationship of the 1958 Mutual Defense Agreement, qualifies me 
to perform the duties and functions of the Deputy Administrator 
for Defense Programs, and I hope that you'll agree.
    In my view, the major challenges confronting the Deputy 
Administrator for Defense Programs are the changes required in 
the nuclear weapons stockpile and the nuclear weapons complex 
as both continue to age. At the very least, these changes 
include, first, progressing to a smaller stockpile; second, 
applying recognized, but as yet undeployed, means of improving 
the safety, the security, and the effectiveness of warheads, 
without changing the military requirements, and without 
recourse to underground nuclear testing; and then, third, to do 
both the first and second with a workforce that is now nearly 
completely different from the workforce that put the complex 
and the stockpile in place.
    Safety and security must be an intrinsic part of the job, 
not add-ons. It's my view that giving the directors of the labs 
and plants accountability for the ``whats''--that means the 
outputs, including good safety and security--as an inherent 
part of the job, but without instructing them on the ``hows,'' 
the process of doing it, would improve not only the productive 
work outputs, but also safety and security. This viewpoint is 
based on personal experience in both the United States and in 
the United Kingdom.
    The Nuclear Deterrent Program is inherently a complex, 
high-technology program. The quality of understanding of the 
underlying science of weapon performance in an aging stockpile, 
including weapon safety and weapon security, is extremely 
important. Capital investments made by Congress in the 
Stockpile Stewardship Program over the last decade have enabled 
important improvements in understanding.
    But, the most advanced experimental and computational 
facilities or advanced manufacturing facilities are not worth 
much without the right people to run them and use them. If 
confirmed, working to retain and develop critical nuclear 
weapons expertise in both the NNSA Federal employee workforce 
and the contractual workforce will be a high priority of mine.
    I am impressed with program elements such as NNSA's 
Stockpile Stewardship Academic Alliances and Future Leaders 
Program, and I want to continue them. I support efforts, such 
as mentoring young weapon designers, most of whom have never 
participated in a nuclear test, with real work. I believe that 
some of the best people are drawn to the hardest problems. 
Articulating those problems clearly, so that they can be 
undertaken and solved, will be one of my objectives.
    In addition, if confirmed, I would pursue effective 
contract mechanisms that support cultivation of critical skills 
at all contractor sites.
    I'm mindful of the relationship between Defense Programs 
and Congress. Defense Programs is fortunate to have received 
good support for the nuclear weapons program. I have pledged to 
meet regularly with Members of Congress and key staff to 
support an open dialogue.
    With your approval, it would be my great privilege to serve 
the Nation and to lead the dedicated men and women of Defense 
Programs in the challenges that lie ahead.
    I thank you for your consideration.
    Chairman Levin. Thank you, Dr. Cook.
    Senator Burr is our acting ranking member here this 
morning, and I'm wondering, because Senator McCain is tied up 
on the floor, whether or not, you might wish to give an opening 
statement.
    Senator Burr. Mr. Chairman, I do not wish to give an 
opening statement, but I would ask unanimous consent to enter 
into the record Senator McCain's opening statement.
    Chairman Levin. We thank you very much for that. That 
statement, of course, will be made part of the record.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Senator Levin.
    I join you in welcoming our nominees and their families, and I 
thank them for their willingness to serve in these key leadership 
positions.
    I'll start by recognizing my Arizona constituent, Maria Matiella, 
who has been nominated to be the Assistant Secretary of the Army for 
Financial Management and Comptroller. As a resident of Tucson, with a 
BA and MBA from the University of Arizona, she is, not surprisingly, 
extremely well-qualified for this position.
    Ms. Matiella began her 29 years of Federal service in 1980, serving 
in various key budgetary positions in the Air Force, Army, and 
Department of Defense (DOD), culminating in her assignment as Director 
of Accounting for the Defense Finance and Accounting Service from 1995 
to 1998. She served most recently as Assistant Chief Financial Officer 
for Accounting for the Department of Housing and Urban Development from 
2004 through 2008. She is also a military spouse--her husband, 
Francisco, is a retired Air Force officer. Thank you for your desire to 
serve again.
    Douglas Wilson is the nominee to be the Assistant Secretary of 
Defense for Public Affairs. Mr. Wilson is well-qualified, having served 
as the Principal Deputy Assistant Secretary of Defense for Public 
Affairs from 1997 through 1999, and with a variety of public interest 
organizations in the private sector since then.
    Paul Oostburg Sanz, the nominee to be the General Counsel of the 
Department of the Navy, will be introduced by Chairman Skelton, who, at 
this point has seen both his committee's chief of staff and, now, 
committee counsel jump ship. We welcome the distinguished chairman of 
the House Armed Services Committee, and we thank him for his generosity 
to the Department and his participation today.
    Jackalynne Pfannenstiel, the nominee for Assistant Secretary of the 
Navy for Installations and Environment, has extensive experience in 
energy policy and regulation in California, and served as Commissioner 
and Chairman of the California Energy Commission. You will, no doubt, 
have a lot of heavy lifting ahead of you, but I trust you will have 
strong support from the Navy and Marine Corps, and I compliment you on 
your willingness to serve in the Department of the Navy.
    Dr. Malcolm O'Neill, the nominee to be the Assistant Secretary of 
the Army for Acquisition, Technology, and Logistics, retired from 
Active Duty in the Army in 1996 as a lieutenant general. He served as 
the Director of the Ballistic Missile Defense Organization and 
Commander of the U.S. Army Laboratory Command. With his strong 
acquisition and research and development background, Dr. O'Neill will 
play a vital role in implementing the provisions of the Weapon Systems 
Acquisition Reform Act of 2009 and in striving to ensure that key 
procurement and modernization programs in the Army, including the 
successor to the Future Combat System, are successfully managed.
    Finally, Dr. Donald Cook has been nominated to be Deputy 
Administrator for Defense Programs in the National Nuclear Security 
Administration. Dr. Cook has extensive experience in key positions at 
Sandia National Laboratories, and most recently, as the Managing 
Director of the Atomic Weapons Establishment for the United Kingdom 
from 2006 to 2009. Like our other nominees today, he is also highly 
qualified for this position.
    I look forward to the testimony of the nominees today, and I again 
thank them and their families for their service.

    Chairman Levin. Let's have an 8-minute first round for 
questioning.
    Let me start with you, Mr. Wilson. In 2003 and 2004, the 
Assistant Secretary of Defense for Public Affairs established a 
group of retired military officers to act as surrogates, 
supporting the Department's views while appearing on TV and 
radio programs, and as military analysts. The officers received 
favorable access from the Pentagon, and all those who raised 
questions or concerns did not receive that kind of access.
    The issue is still under investigation by the DOD Inspector 
General, but in response to the committee's advance policy 
questions, you said that ``It is inappropriate and contrary to 
Department policies to selectively benefit any individuals or 
groups, including retired military personnel, by providing them 
special treatment or increased access to Department 
officials.'' I'm wondering, if confirmed, Mr. Wilson, will you 
review applicable Department directives and issue any 
additional guidance that may be needed to ensure that the 
Department does not provide different access or favorable 
access or benefits on a selective basis to individuals who 
support the administration's views?
    Mr. Wilson. Yes, I will, if confirmed, Senator. Access 
should be provided on an equal and balanced basis, and if 
confirmed, I do plan to review those policies.
    Chairman Levin. In August 2009, Stars and Stripes reported 
that the Office of Assistant Secretary of Defense for Public 
Affairs had used a private contractor to profile journalists 
seeking to report on ongoing combat operations, categorizing 
them as either positive, negative, or neutral. Now, Secretary 
Gates put an end to that profiling within the last few months, 
when that practice became public. In your response to the 
committee's advance policy questions, you said that ``I don't 
believe in any system that rates reporters based on a 
perception that their reporting is positive or negative. In my 
view,'' you said, ``we should never be a party to efforts to 
place so-called `friendly reporters' into embeds while blocking 
so-called `unfriendly reporters.' ''
    My question is, if confirmed, will you review applicable 
Department directives, issue, again, any guidance that may be 
necessary to ensure that public funds are not used to profile 
reporters and to differentiate among reporters, based on 
whether or not their reporting is ``friendly?''
    Mr. Wilson. Yes, Senator, if confirmed I will do that.
    Chairman Levin. Is it your view that in the selection of 
radio and television talk shows that are broadcast by the Armed 
Forces Radio and Television Service (AFRTS), that there should 
be an effort to assure fairness and balance?
    Mr. Wilson. Yes, I do believe that, Senator.
    Chairman Levin. As a matter of fact, because the AFRTS is a 
publicly-owned entity that broadcasts to our men and women in 
uniform in circumstances that often preclude competition, does 
not the Armed Forces Radio and Television have a--indeed, a 
greater responsibility for fairness and balance than other 
media outlets might have?
    Mr. Wilson. Senator, I believe the Armed Forces Radio and 
Television Service has a responsibility to present fair, 
balanced, and accurate programs and information. If confirmed, 
I intend to make sure that those standards are met.
    Chairman Levin. Thank you. Dr. O'Neill, a couple years ago, 
the Gansler Commission reported on significant deficiencies in 
the Army acquisition workforce. We've learned that the 
shortages in the Army workforce extend to virtually every 
aspect of acquisition, including program managers, system 
engineers, software engineers, developmental testers, and cost 
estimators. We've enacted a Defense Acquisition Workforce 
Development Fund, and Secretary Gates has announced an 
aggressive hiring plan to address this problem. If confirmed, 
will you make it a top priority to rebuild the Army acquisition 
workforce and to ensure that the Army has a workforce that's 
appropriately staffed, qualified, trained, and organized to 
accomplish its mission?
    Dr. O'Neill. Yes, sir.
    Chairman Levin. Dr. O'Neill, major Army modernization 
efforts have not had a great deal of success over the last few 
decades, in many instances. Strategies, plans, investment 
priorities have changed, from digitization to Force 21, to Army 
After Next, to Interim Force, to Objective Force, to Future 
Combat System (FCS) and modularity, and with each change in 
uniformed or civilian leadership. Now it remains to be seen 
whether the restructuring of Army modernization efforts last 
year, with the cancellation of the ground vehicle portion of 
the FCS program, is going to provide an opportunity to apply 
the lessons of the last decade and to gain and develop a more 
sound and more stable modernization strategy.
    What steps do you believe we need to take for the Army to 
avoid the mistakes of the recent past and to develop a stable 
modernization program that lives up to its technological and 
affordability promises?
    Dr. O'Neill. Senator, the FCS program was a very large 
program. It had a single integrating contractor, called a 
``lead system integrator.'' The task was very difficult. The 
amounts of resources that were required were very large. I 
think that the management challenge was a bit too much.
    What Secretary Gates has done is, he has directed the Army 
to take the concept of the Future Combat System, turn it into a 
number of chewable, as it were, pieces, and have an overall 
integration effort to pull those pieces together.
    The combat vehicle is being reconsidered. As it presently 
exists, it has been canceled. The non-line-of-sight cannon has 
been canceled, as of this month.
    If confirmed, one of my first goals will be to take a 
detailed look at the remnants--the residuals of the Future 
Combat System, and see how we can organize those to be success-
oriented.
    Chairman Levin. Is there going to have to be a much greater 
emphasis now, going back to research and development of the new 
system?
    Dr. O'Neill. Yes, sir. Exactly. The ideas, I think, that 
led to some of the cost overruns and schedule slippages were 
that decisions were made in anticipation of successful testing 
of the maturation of technologies that weren't as simple as we 
thought. I think that's one of the guidelines for a future 
acquisition management; and that is, to ensure that the 
research has matured to an adequate level before you make the 
kinds of decisions, moving into engineering development, 
building systems. I think the idea of competitive prototyping 
is key in that regard.
    Chairman Levin. Thank you.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Chairman, I'd like to highlight the good judgment of 
the administration to have nominated individuals with North 
Carolina ties. [Laughter.]
    In full disclosure to the committee, I think it's important 
that I say I show great favor towards anybody who graduated 
from Wake Forest, because it shows good judgment by not just 
the students, but the parents. I congratulate those two law 
school students. [Laughter.]
    Mr. Oostburg Sanz, are you aware of the widespread 
contamination of the Camp Lejeune water system that existed in 
the 1950s through the 1980s?
    Mr. Oostburg. Yes, Senator.
    Senator Burr. You may also be aware that in 1989 the 
Environmental Protection Agency designated Camp LeJeune as a 
National Priority Listed site, and under title 42, U.S.C., the 
Agency for Toxic Substances and Disease Registry (ATSDR) at 
Centers for Disease Control (CDC), and I quote ``shall'' 
conduct public health assessments, and, if they deem it 
necessary, conduct human health effects studies of National 
Priority Listed sites.
    The Congressional Research Service has stated that in their 
reading of title 42, the Navy, as the primary responsible party 
for Camp LeJeune's site, is statutorally required to fund such 
studies.
    Would you agree that the Navy has a statutory 
responsibility, here, to act as promptly as they can?
    Mr. Oostburg. Yes, Senator.
    Senator Burr. Would you think it's reasonable to seek 
information that will inform the public if there's a higher 
rate of death among those who served at Camp LeJeune, and if 
those rates were higher from that death?
    Mr. Oostburg. Yes, Senator.
    Senator Burr. Ms. Pfannenstiel, again, I congratulate you 
on the successful graduation of students. That's only surpassed 
by the success of getting a job, these days, for those of us 
that have recent college graduates.
    You have quite a background in utilities, as a commissioner 
in California, and a long tenure with a company. Let me just 
ask you. In California, were Pacific Gas and Electric Company 
(PG&E) to be identified as a party responsible for a site where 
environmental contamination occurred, would the State of 
California allow PG&E to direct the State's investigation of 
the site, and permit it to determine the amount of funding it 
provided for the investigation?
    Ms. Pfannenstiel. That seems unlikely, Senator.
    Senator Burr. A little bit of background. Currently the 
Department of the Navy, the primary party responsible for Camp 
LeJeune, for the Marine Corps, is asserting that it can 
determine which Federally funded and statutorally mandated 
scientific studies will be conducted to investigate water 
contamination that occurred at the base between 1957 and 1987. 
Title 42, U.S.C. vests the authority to determine the need and 
scope of research conducted on the National Priority Lists 
solely with ATSDR at the CDC. ATSDR is authorized to conduct 
its research independent from the primary responsible party. 
That makes common sense, whether you're in California or 
whether you're in the Federal Government.
    Essentially, what the Department of the Navy's doing with 
respect to withholding funds for key government studies which 
will investigate the environmental contamination at Camp 
LeJeune, the Navy's refusing to fund a mortality study, 
recommended by the U.S. Government scientists, and we don't 
know if the death rate for marines and sailors who lived at 
Camp LeJeune is greater than that of marines from other bases.
    In light of the documented levels of contaminants present 
in the tapwater at Camp LeJeune, do you think it makes sense to 
conduct a study that would help us determine those death rates?
    Ms. Pfannenstiel. Senator, my understanding is that the 
studies are ongoing, that the Navy has funded, and continues to 
fund, the studies that you referenced.
    My further understanding is that there are other studies 
that are being proposed. While I have not been privy to the 
results of the studies, it is my understanding that as the 
studies are completed, other studies will be funded, as 
indicated by the Navy.
    Senator Burr. You are correct that there are ongoing 
studies, and the two most crucial to determine what I just 
covered are the mortality study and the health study, which 
have yet to be funded by the Department of the Navy for ATSDR. 
It's absolutely crucial that funding commitment happen before 
we get to the end of January, or all of a sudden we restart the 
clock and there's another 6 months. Do I have a commitment from 
both of you that you'll do everything within your power to see 
that the Navy fulfills its statutory obligation?
    Mr. Oostburg Sanz?
    Mr. Oostburg. Absolutely. If confirmed, my primary 
responsibility, as chief legal officer of the Department of the 
Navy, is to make sure it's in full compliance with all 
applicable laws that apply to the Department of the Navy. 
Certainly, to the extent that there's an obligation on the 
Department of the Navy to conduct a study which it has yet not 
conducted, I would work with my colleagues in the Department to 
make sure that occurred.
    Senator Burr. Thank you.
    Ms. Pfannenstiel?
    Ms. Pfannenstiel. Certainly, Senator. If I'm confirmed into 
this position, I will commit to investigate and see what 
studies need to be done and what the status is.
    Senator Burr. To further follow up, it is not the function 
of the Navy to determine which studies; solely the statutory 
responsibility of an agency within the CDC, under title 42, 
U.S.C.
    If I could turn to Dr. O'Neill, for just a second, with 
regard to the Army's Family Medium Tactical Vehicles (FMTVs).
    Chairman Levin. Senator Burr, excuse me for 1 minute.
    Senator Burr. Yes.
    Chairman Levin. I'm going to have to leave for a couple 
minutes. When you're done, could you turn it over to Senator 
Burris? I will be back, however, in a few minutes.
    Senator Burr. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Burr. I appreciate that.
    With regard to the FMTV contract award decision, on 
December 14, the Government Accountability Office (GAO) ruled 
that the Army's capability evaluation in the bid process was 
flawed. This is a major issue, because capability was 40 
percent of the FMTV rebuy evaluation. I'm sure that the Navy, 
in doing its due diligence and reexamining the capability 
factor within the bid, will look at different levels of in-
place and qualified capabilities, such as proper tooling, eco-
facilities, and a qualified cab design, all of which impact 
production and raise cost-related risk.
    Would you agree with that?
    Dr. O'Neill. Yes, Senator, I agree.
    Senator Burr. Since the Weapons Systems Acquisition Reform 
Act of 2009 was unanimously passed by Congress in May--happened 
to be the same time that the FMTV rebuy competition was taking 
place--it would now be prudent to review the FMTV rebuy within 
the guidelines of this new required process, to ensure the 
American taxpayers and our soldiers get the best product at the 
best value.
    Would you agree with that, as well?
    Dr. O'Neill. Senator, I agree, in principle, but I must say 
that I have not yet been briefed in detail on the situation 
with regard to FMTV. I have read, in the newspaper--and it 
makes all the sense in the world, with the Reform Act 
introducing concepts like Cost Assessment and Program 
Evaluation--very reasonable things to do. I certainly am 
inclined to be very positive about that approach in relooking 
at FMTV.
    But, as I said, I am not privy to the decisions being made 
by the Army at this time in response to the GAO sustaining of 
the protest.
    Senator Burr. Thank you for that, and I will assure you 
that we've learned, in Washington, if it's printed in the 
paper, it must be fact. [Laughter.]
    You can take that to the bank.
    FMTV is a multibillion-dollar program that meets the 
definition of a major defense acquisition program. Since the 
GAO has determined that the Army did not evaluate 40 percent of 
Oshkosh correctly, this would be a great opportunity for you to 
take a pause and to reevaluate the entire process, in light of 
the above-mentioned legislation. Would you see that as the 
right opportunity to take advantage of?
    Dr. O'Neill. Senator, I think it would be a good time, if 
confirmed, for me to play a strong role, depending upon how 
quickly a resolution of this matter needs to be done.
    Senator Burr. Dr. O'Neill, I appreciate that.
    I would yield the microphone to my good friend Senator 
Burris.
    Senator Burris [presiding]. Thank you, Senator Burr. I 
appreciate that.
    If you've noticed a difference, his family couldn't spell; 
they forgot the ``I-S.'' [Laughter.]
    It's a pleasure for me to be with these distinguished 
nominees, and I would like to thank our witnesses for appearing 
before this committee as we consider your nomination for the 
various offices in DOD--the Army, the Navy--and, of course, 
with the National Nuclear Security Administration.
    As this country fights two wars, ongoing in Afghanistan and 
Iraq, we need strong leaders within DOD to ensure that we take 
care of our soldiers and our personnel serving in the military, 
and be responsible for the taxpayers as we spend billions and 
billions of taxpayers' dollars.
    Now, we have sought, in this budget, which we're hoping to 
pass very shortly in the Defense appropriation, major increases 
on behalf of our Service personnel that's serving, also those 
who have served. This Congress is committed to doing what we 
can for those who allow us to do what we do here in America. By 
coming on board with these positions that you've been nominated 
to, and, hopefully, shortly confirmed to, you have the 
obligation of making sure that personnel who protect us get the 
best that we can give to them. I would just like to ask a few 
questions.
    First, to Mr. Wilson. What do you envision will be your 
role in addressing whether photographs, purportedly showing the 
abuse of detainees in Iraq and Afghanistan, should be released, 
and whether doing so endangers U.S. troops serving abroad? If 
you have a situation arising similar to what happened at Abu 
Ghraib, what would be your reaction, if you're confirmed, sir?
    Mr. Wilson. Senator, I am familiar with the example that 
you give, from what I've read in the papers. According to the 
directive which outlines the duties of the Assistant Secretary 
of Defense for Public Affairs, I would certainly be involved 
in, and have a primary responsibility for, decisions regarding 
the release of such photographs.
    Senator Burris. Thank you.
    Dr. O'Neill, in the advance policy questions, you stated, 
``The Army should use the type of contract that is best suited 
for the acquisition at hand, considering primarily complexity 
and risk.'' In evaluating contracts, under what condition would 
fixed-price contracts be more suitable?
    Dr. O'Neill. Senator, fixed-price contracts are very 
suitable. Fixed-price contracts are the contracts you want to 
get as close as possible to, because you make an agreement to 
pay so much for ``the thing.'' What you have to have for fixed-
price instruments is good knowledge of what you are buying. The 
easiest thing is to buy from a catalog or when you go to the 
showroom, and you look at the car, you buy the car. Fixed-price 
contracting is where you want to go. You want to push toward 
that. You want to push away from time and materials, where you 
tell somebody that you're going to give them so much money and 
so long to do something, but we're not quite sure what that is, 
or cost-plus type contracts, where you tell a person, ``We're 
going to do this program, and we'll pay what we think it costs, 
but the cost might increase.'' Fixed-price contracting should 
be our goal, and fixed-price contracting can be done, where you 
can write a specification for delivery of a particular object.
    Senator Burris. Under what circumstances, Doctor, would a 
noncompetitive contract be justified? What safeguards can be 
put in place to protect the taxpayer?
    Dr. O'Neill. Senator, you would have a noncompetitive 
contract when and if you were in a situation where you couldn't 
establish a ball game, as it were; there was no one else who 
could do the job.
    Senator Burris. Are you talking about sole-sourcing?
    Dr. O'Neill. That's sole-sourcing, yes, sir. That would be 
a noncompetitive.
    Senator Burris. How about emergency situations?
    Dr. O'Neill. Also in an emergency situation, where, for 
example, you have a contractor who has already demonstrated 
that he's doing something, and you need to double that 
production, for example; you realize that no other industry in 
America has the necessary capital equipment, trained people, 
you need it in the field in 2 years. What you do is, you tell 
that company, ``You're going to get a sole-source extension to 
double the production of that piece of equipment.''
    Senator Burris. Lastly, Doctor, what would you do to 
address and limit cost overruns and cost-plus contracts? What 
are some of the tools to address this issue?
    Dr. O'Neill. To work with cost-plus, what I would do is try 
to buy the thing in stages, reduce the risk, eliminate risk, 
insofar as you can, and, as the risk approaches zero, then you 
go from a cost-type contract to a firm fixed-price contract.
    Senator Burris. Thank you.
    Ms. Matiella, you're going to be the Assistant Secretary of 
the Army, and the Chief Financial Management and Comptroller. 
Is that correct?
    Ms. Matiella. If confirmed.
    Senator Burris. We'll take care of that.
    I notice on your resume--you have an excellent resume. 
You're also a certified public accountant?
    Ms. Matiella. Yes, I am.
    Senator Burris. Okay, that's not on your resume, that I 
saw.
    Ms. Matiella. Oh, gee.
    Senator Burris. Okay. Because I thought, if you're going to 
be a comptroller--of course, I was a comptroller of the State 
of Illinois, and I was not a certified public accountant. 
That's the reason why I raised that question.
    Ms. Matiella. Yes.
    Senator Burris. I thought maybe you were trying to get 
elected. You know about the financial statements and all that, 
that's going to be necessary to keep track of the accounting 
process.
    Ms. Matiella. Yes, I do.
    Senator Burris. Okay. Now, what do you do to increase the 
transparency of the Army's budget? What would you do, Madam 
Assistant Secretary, if confirmed?
    Ms. Matiella. If confirmed, I would look into where we are, 
in terms of systems. The data comes in. It has to be visible 
through the system. So make sure that the systems are in place 
that would show that kind of visibility and that kind of 
transparency. I think that would be one of my focuses, if 
confirmed.
    Senator Burris. Mr. Oostburg, what role should the general 
counsel play in addressing allegations of fraud and abuse of 
contracting for the wars in Iraq and Afghanistan?
    Mr. Oostburg. The Office of General Counsel and, if 
confirmed as general counsel, the leader of that office, my 
primary responsibility would be to make sure the Department of 
the Navy fully complies with all the laws and regulations of 
this great country. The Office of the General Counsel currently 
has at least two assistant general counsels that are dedicated 
to acquisition issues. There's a dedicated staff that, their 
main focus, day to day, is to ensure that these types of issues 
are addressed; and, working in cooperation with our uniformed 
colleagues in the Navy Judge Advocate and the Marine Corps 
Staff Judge Advocate's Office, we would make sure that the 
Department fully complies with all acquisition.
    Senator Burris. Mr. Chairman, my time is expired. May I 
have leave to have a couple more minutes?
    Chairman Levin [presiding]. Of course.
    Senator Burris. Thank you, Mr. Chairman.
    Ms. Pfannenstiel, you are up for the position of the 
Assistant Secretary of the Navy for Installations and 
Environment. Do you know Secretary Mabus?
    Ms. Pfannenstiel. Yes, I do, Senator.
    Senator Burris. I won't hold it against you. [Laughter.]
    He's a good friend of mine. Got to do a good job for him, 
okay?
    Ms. Pfannenstiel. I will. Thank you.
    Senator Burris. What do you foresee will be your working 
relationship with the Environmental Protection Agency and other 
State regulatory agencies with this position?
    Ms. Pfannenstiel. My understanding is that the position of 
Assistant Secretary for Installations and Environment is a 
representative of the Department of the Navy, with many other 
State and Federal agencies, including the Environmental 
Protection Agency.
    Senator Burris. Okay. Following up on a question that 
Senator Burr had raised, once the scientific studies for water 
contamination at Camp Lejeune have been completed, what type 
and level of information-sharing would you do with those 
affected by the contamination, and the Secretary of Veterans 
Affairs? I also serve on the Veterans Affairs Committee, and we 
had some damaging testimony from children born at Camp LeJeune 
that there are now males suffering from breast cancer. That is 
unconscionable that we have that type of a situation existing 
in our military bases. Then there's denial, in some instances, 
by some of our Services. Could you respond to that, please?
    Ms. Pfannenstiel. Yes, Senator Burris. When the information 
is complete, when the Navy has received the results of the 
studies that are ongoing, there will be, I understand--that 
will determine what steps need to be taken. My understanding is 
that there has been an effort, even at this point, to reach 
out, to try to communicate with all of the past Service people 
and families and civilian contractors who were at the Fort 
during the period of time of the contamination. Now, if I'm 
confirmed into this position, I would certainly be in a place 
to see the results and make sure that the communications were 
as extensive as possible.
    Senator Burris. I think you did about as best as you could 
with that question. I appreciate that. Don't want to commit 
yourself.
    Dr. Cook, I just need a clarification. You're going to be 
in the Defense Department, but you're working with the NNSA in 
it. Where are you housed?
    Dr. Cook. Let's see, Senator Burris. I'm nominated for the 
Deputy Administrator of the NNSA, which is a part of the 
Department of Energy.
    Senator Burris. Not DOD.
    Dr. Cook. That's correct. But, it works very closely with 
DOD.
    Senator Burris. Oh, I see. How closely?
    Dr. Cook. Meetings somewhere occurring every single day.
    Senator Burris. So, you're going to be wearing two hats.
    Dr. Cook. The national security enterprise includes DOD, 
the Department of Energy, Department of Homeland Security, and 
other Federal Government departments. But the hat that I'll be 
wearing is a fairly clear one, and I'm sure I'll be held 
accountable for it, if confirmed.
    Senator Burris. Good luck, to all of you. I'll look forward 
to you being confirmed. You all are doing a great service.
    Thank you very much, Mr. Chairman, I appreciate the extra 
time.
    Chairman Levin. Thank you very much, Senator Burris.
    Ms. Matiella, let me ask you, I understand that during your 
service in the Agriculture Department, that you led the Forest 
Service to its first unqualified audit opinion, and if you are 
confirmed, you would work towards establishing priorities for 
the preparation of auditable financial statements. What 
challenges did you face when you were doing that audit for the 
Forest Service, on the path to a clean audit?
    Ms. Matiella. The first challenge was communicating the 
expectations and the requirements to the folks out in the 
field. At that point, financial management was very spread out 
throughout the whole United States. So, communicating the 
requirements.
    Number two, was ensuring that the documentation was in 
place. All of the data has to supportable. We have to make sure 
that, in fact, all of the obligation records, all the expense 
and revenue records were in place.
    Once we felt comfortable that we had the supportable data, 
then we worked with the auditors to help them obtain that 
documentation. We also implemented a general ledger 
transaction-driven accounting system, which was critical. That 
was Joint Financial Management Improvement Program-certified.
    We had the system in place, the documentation in place, the 
expectations were clear, and we worked very closely, not only 
with headquarters, but the auditors.
    Chairman Levin. Any particular challenges that you see in 
realizing a clean audit for the Army, if you're confirmed?
    Ms. Matiella. Well----
    Chairman Levin. You may not be able to foresee them, but, 
if you do foresee them, you can share them with us now.
    Ms. Matiella. I'll share the fact that the issues of 
documentation, proper systems, laying out policies and 
procedures would be a challenge for DOD, as it is for every 
department in the Government. We all, generally--and that's 
what's good about me having spent time in different 
departments, is, I can see that we have generally, the same 
kinds of challenges.
    Chairman Levin. Okay. Thank you.
    Mr. Oostburg, the Chief of Naval Operations (CNO) recently 
stated that the Navy is going to assign female sailors to 
submarines, starting in 2011. What is your understanding of the 
status of this change in policy? What role would you expect to 
play in implementing a new policy? What is your understanding 
of the conclusions and lessons that have been learned from 
Operation Iraqi Freedom and Operation Enduring Freedom about 
the feasibility of current policies regarding women in combat?
    Mr. Oostburg. Senator, my understanding is that Secretary 
Mabus, the CNO, and others in the leadership of the Department 
of the Navy are very much committed to ensuring that women in 
the Navy and Marine Corps have as fulsome opportunity to serve 
as possible, and part of that is allowing women to serve on 
submarines.
    With regard to legal implications of that assignment, as 
far as I know at this time, I'm not aware of any, but certainly 
there are manpower considerations, such as making sure that 
there is not just an adequate number of women that are assigned 
to any particular submarines, but that the types of assignments 
are such that they are able to support one another. I would 
imagine those same types of considerations are at play with 
regard to other assignments within the Department of the Navy. 
If confirmed as chief legal officer and working with my 
colleagues in the uniformed Services, I would hope to help the 
Secretary implement those changes.
    Chairman Levin. Now, there's going to be some deliberation 
and discussion, and perhaps change, in the ``Don't Ask, Don't 
Tell'' policy, which went into effect in 1994, after months of 
congressional hearings and debate. What role, if you are 
confirmed, do you expect to play in deliberations over efforts 
relative to that policy, to repeal or change that policy?
    Mr. Oostburg. Senator, as I understand, DOD and the various 
Services are undergoing a very thorough review of what changes 
need to perhaps be suggested to Congress with regard to changes 
in the law. In addition, they're looking to see how they can 
change the implementation of the policy as it currently stands. 
Certainly, there's the case out of the Ninth Circuit which has 
some implications with regard to how administrative separation 
occurs, and what considerations need to be taken into account 
in those instances. If confirmed, I would look to give my best 
legal advice to the Secretary as he helps to formulate his 
response to how the existing law and policies are enacted.
    Chairman Levin. Okay. Ms. Pfannenstiel, the Department of 
the Navy has a number of valuable properties which need to be 
conveyed, or perhaps will be conveyed, as part of the recent 
Base Realignment and Closure (BRAC) round. The Department has 
some properties that they have retained which go back as far as 
the 1993 BRAC round, so no longer being used by the Navy. The 
question is the disposal of those properties.
    Now, the committee provided some new legislative direction 
in the National Defense Authorization Act for Fiscal Year 2010, 
which was aimed at expediting transfer of those properties to 
local redevelopment authorities. We provided clear flexibility, 
where perhaps there had been too much rigidity before. But, we 
gave great discretion to the Department now to use many number 
of different paths and routes to dispose of those properties. 
We're hoping that we're going to see some real progress in the 
next 6 months in that effort.
    Will you make it a high priority to expedite the transfer 
of these properties, in a manner which is equitable, both to 
the Department and to local communities?
    Ms. Pfannenstiel. Yes, Senator, I will. If I am confirmed 
into the position, then clearly the conveyance of the 
properties that have been identified under the BRAC process is 
a high priority, and I will certainly commit to you that I will 
make it one of my highest priorities.
    Chairman Levin. Thank you very much.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to thank all our nominees for their service and 
willingness to serve, and congratulate you on your nominations. 
We look forward to working with you, as your process moves 
forward.
    If I might, Mr. Chairman, I'd like to direct one question 
to Dr. Cook.
    As you may know, in the National Defense Authorization Bill 
for Fiscal Year 2010, there was a provision passed stating that 
it's the intent of Congress that modernization of the nuclear 
weapons complex, among other things, is key to enabling further 
reductions in the nuclear forces of the United States. My 
question is, what are your views on modernizing the nuclear 
weapons complex?
    Dr. Cook. Thank you for the question, Senator.
    It is a complex subject by itself. The state of the nuclear 
weapon complex and the state of the nuclear weapon stockpile 
are, in fact, intertwined. Human capital--the amount of 
capability to understand adequately the changes that are 
required in the nuclear weapon stockpile after the armed 
services, DOD, and U.S. Strategic Command (STRATCOM) decide the 
changes that are required, then they need to be supported by 
the NNSA. Certainly, the NNSA will help inform the decision. 
But, in fact, the work that's required is specific to each of 
the weapon systems that comprise the U.S. nuclear deterrent. 
The nuclear weapon complex can cover the range of possibilities 
that is required, but it would be useful to understand the 
details of the changes in the nuclear weapon stockpile that 
need to be made. Certainly, all who work in the area are 
hopeful that the Nuclear Posture Review, which will be--is 
scheduled to be released on February 1--help in that decision, 
and then we can proceed.
    The difficulty in changing the nuclear weapon complex 
itself, as downsizing or some elements of revitalization are 
made, is to make a set of decisions which are inherently 
intertwined over the next few years, that we don't regret a 
decade or two beyond. There are a number of studies that are 
going on; they're looking very carefully at the kind of changes 
that are required. All of this, however, comes in an assumption 
of the future nature of the deterrent that we need.
    I hope I've answered part of your question. If not, you can 
certainly follow up.
    Senator Thune. Okay. I appreciate that. We may follow up 
with you. It bears on a lot of other issues, including the 
Strategic Arms Reduction Treaty negotiations and everything 
else. Many of us believe that that is essential, that we 
modernize the stockpile. We look forward to working with you on 
that.
    Dr. Cook. Thank you very much.
    Senator Thune. Mr. Chairman, that's all I had. Thank you.
    Thank you all, again, for your service.
    Chairman Levin. Thank you, Senator Thune.
    Ms. Pfannenstiel, the Navy's use of active sonar systems 
that search for underwater threats by emitting sound into the 
water, has been challenged by a number groups, including State 
governments, including groups that have a particular interest 
in this issue, alleging that the use of the systems does not 
comply with certain regulatory and legal requirements.
    What is your understanding, if you have one, of the effect 
of these systems on marine life, particularly marine mammals?
    Ms. Pfannenstiel. I understand that the Navy is 
sponsoring--and is, in fact, the major sponsor, around the 
world, in the study of the effects on marine mammals--and that 
study is underway. There clearly needs to be remediation, if 
there is, in fact, an effect that the Navy finds from the 
studies. Meanwhile, while the studies are underway, I 
understand that the Navy is taking whatever remedial action is 
necessary, awaiting the results.
    Chairman Levin. Are you going to be actively involved in 
the Navy's effort to basically ``go green'' at its 
installations and purchases?
    Ms. Pfannenstiel. Yes, sir, if confirmed, I expect to work 
with the Secretary on the initiatives he has offered on the 
green proposals.
    Chairman Levin. All right. Will you make that a high 
priority?
    Ms. Pfannenstiel. That would be a very high priority with 
me, Senator.
    Chairman Levin. Good. Thank you.
    Dr. Cook, there's been reference made to a nuclear weapons 
treaty. One of the treaties which is under consideration is the 
Comprehensive Test Ban Treaty. If the President submits that 
treaty again to the Senate, can you tell us, what role would 
you be playing in addressing the technical question of whether 
or not the United States can maintain a stockpile safely, 
securely, and reliably, without testing?
    Dr. Cook. Yes, thank you for the question, Senator.
    If confirmed as Deputy Administrator for Defense Programs 
at NNSA, the role that I would play would be informing, as 
deeply as possible, the technical choices that are available in 
the present stockpile to extend the life. I would, as asked, 
maintain an open relationship with Congress and would ensure 
that the NNSA provides answers to all the questions.
    I believe that it's a very important time. The United 
States has not required an underground nuclear test since 
September 1992 and, at present, doesn't have a current need to 
do so. The nature in which the choices for the deterrent are 
made, as I indicated to Senator Thune, are critically dependent 
on the resources that--again, the humans we have and the 
understanding, but also the facilities.
    My own view is that it is possible to continue a vital 
nuclear deterrent without recourse to underground nuclear 
testing, if certain capabilities are available on a continuing 
basis. But, they come to the core, those that are required for 
good people, good experimental information, advanced 
computation, to determine whether something is likely either to 
work or not. Without that, a nuclear test might be required. 
But, with that, we can determine that one would not be required 
by the approach that we take.
    Chairman Levin. With that being those three elements, I 
believe, that you just identified?
    Dr. Cook. Yes, sir.
    Chairman Levin. Again, we thank you all for your previous 
service to our Nation, to your willingness to continue to serve 
in the positions to which you've been nominated. We hope that 
the committee can act promptly on your nominations. Whether or 
not we're successful in some of the other more public endeavors 
that we're involved in, we hope that we can move your 
nominations promptly so that the Nation can have a Christmas 
gift, perhaps, in having you all confirmed. I can't guarantee 
that, but we'll do everything we can.
    We will stand adjourned.
    [Whereupon, at 11:01 a.m., the committee adjourned.]

    [Prepared questions submitted to Douglas B. Wilson by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I agree with the emphasis in the Goldwater-Nichols Act 
on jointness and the establishment of unified and specified combatant 
commanders. The effectiveness of joint operations has been clearly 
demonstrated in Iraq and Afghanistan. I strongly support continued and 
increased efforts to improve the jointness of our military forces.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. If confirmed, I anticipate having regular interaction with 
the Secretary in order to remain abreast of his insights, priorities, 
and decisions. I will offer him my counsel and stand ready to serve him 
on the full range of issues facing the Department from a communication 
perspective. I will assist the Secretary in fulfilling the Department's 
communications responsibilities to Congress, within and across the 
administration, to the general public, and--of critical importance--
within the Department to civilian and military personnel.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I anticipate my relationship with the Deputy 
Secretary will be much the same as my relationship with the Secretary 
of Defense.
    Question. The Under Secretaries of Defense.
    Answer. My role--and the role of the entire Department of Defense 
(DOD) Public Affairs team--would be to provide communications counsel 
and support at all levels in the Department. The Under Secretaries play 
a critical role in policy development and implementation, and if 
confirmed, I would look forward to engaging with all of them to develop 
effective communication with Congress, within the administration and to 
their key public and private sector audiences.
    Question. The Assistant Secretary of Defense for Legislative 
Affairs.
    Answer. The Assistant Secretary for Legislative Affairs has set the 
highest standards and has assigned the highest priority to keeping 
Congress fully informed on all aspects of the Department. If confirmed, 
I'll look forward to working very closely with Assistant Secretary King 
to ensure that the Office of Public Affairs helps her and helps the 
Secretary to meet those standards regarding our communications with 
Congress on all national security and defense-related matters.
    Question. The DOD General Counsel.
    Answer. I take the legal responsibilities and obligations of public 
affairs work very seriously. If confirmed, I will be pro-active in 
working with the General Counsel and his office to ensure that our 
communication activities are implemented according to regulation and 
statute. I believe that it is particularly important during wartime 
that we communicate to Congress and to the broader public the legal 
framework and the many unique legal aspects of DOD activities.
    Question. The Service Secretaries.
    Answer. The Service Secretaries have a most important role in the 
department's internal communications in keeping with their title 10 
responsibilities. They also interact regularly with Members of Congress 
and their staffs. If confirmed, I would work closely with them, and in 
close consultation with the service public affairs chiefs, to help and 
support them as they discharge these responsibilities, and--through the 
Defense Media Activity (DMA)--ensure communications consistency, 
clarity, and regularity.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I would expect to work with the Chairman and 
with the relevant press and public affairs personnel of his office to 
help communicate with our forces across DOD, and with Congress and the 
public, as appropriate.
    Question. The Members of the Joint Chiefs of Staff.
    Answer. If confirmed, I would expect to work with the Chiefs as 
with the Service Secretaries, as appropriate and relevant to help 
communicate with our forces. In addition, I would look forward to 
working with the Chiefs to assist them in communicating the 
Department's messages and policies to Congress and the public, as 
appropriate.
    Question. Senior Uniformed Officers Responsible for Public Affairs, 
including the Army's Chief of Public Affairs, Navy's Chief of 
Information; Marine Corps' Director of Public Affairs; and Air Force's 
Director of Public Affairs.
    Answer. If confirmed, I anticipate frequent interaction with the 
senior Public Affairs professionals from the services. I believe these 
are critical relationships for the Assistant Secretary of Public 
Affairs; together, we must and will work to find the best ways to 
gather facts and communicate information clearly, credibly, and 
consistently about the wide variety of programs, operations, and issues 
affecting the Department and Services.
    Question. The Pentagon Press Corps.
    Answer. As a former Principal Deputy Assistant Secretary of Defense 
for Public Affairs, I understand the importance of establishing a 
strong working relationship with the Pentagon Press Corps. If 
confirmed, I will work hard to ensure that my relationships with the 
members of the Pentagon Press Corps are based on mutual trust, 
fairness, and respect for the roles and responsibilities which define 
the respective positions we hold.
                                 duties
    Question. DOD Directive 5122.05 of September 2008, describes the 
responsibilities and functions of the Assistant Secretary of Defense 
for Public Affairs (ASD(PA)).
    What is your understanding of the duties and functions of the 
ASD(PA)?
    Answer. I understand the responsibilities of the position outlined 
in the directive. In this position, if confirmed, I would serve as the 
principal staff assistant and advisor to the Secretary and Deputy 
Secretary of Defense for setting DOD policy and execution on news media 
relations, public information, internal information, community 
relations, public affairs and visual information training and audio 
visual matters, and for Department representation on inter-departmental 
communications matters.
    Question. Assuming you are confirmed, what changes, if any, in the 
duties and functions of ASD(PA) do you expect that the Secretary of 
Defense would prescribe for you?
    Answer. If confirmed, I do not anticipate changes in the duties and 
functions of the position as described in the directive at this time.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have served in public and private sector roles in 
strategic communication, foreign policy, national security policy and 
public diplomacy. These include service as a Principal Deputy ASD(PA) 
in DOD, as a congressional director and senior advisor at the former 
U.S. Information Agency, as a congressional staffer and in the field as 
a Foreign Service Information Officer. I have also led global research-
based communications efforts for private-sector clients such as 
Microsoft, and for the past 8 years have focused on identifying and 
bringing together successor generation leaders from around the world 
and from all walks of life in my capacity as Board Member and Executive 
Vice President of the non-profit Howard Gilman Foundation. Taken 
together, I believe this experience has given me a deep understanding 
of the importance of communicating fairly, credibly, accurately, and 
regularly with Congress, the American people and international 
audiences. I have learned in particular that communication is a two-way 
process, involving listening as well as transmitting information and 
messages.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next ASD(PA)?
    Answer. I believe the next ASD(PA) will not only be responsible for 
effectively communicating Department information and messages to 
Congress, to the American public, and to international audiences--but 
he or she will also be responsible for working even more closely with 
colleagues and counterparts who also have communications 
responsibilities within the national security framework--diplomatic, 
intelligence, foreign assistance, public diplomacy, legal and 
financial, both within the administration and within Congress. All 
involved must work together to develop credible and consistent message 
frameworks as well as both rapid pro-active and rapid-response 
communications efforts within those frameworks. All of this must be 
done within a continually-changing technological environment shaped by 
the many communications and social networking tools available not just 
to government communicators but to individuals, groups and mass 
audiences. The challenge here will be to understand that these new 
tools are themselves not a ``one-size-fits-all'' panacea, but instead 
must be tailored for use when and where they can be effective, either 
singly or in combination with other communications tools.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I plan to make every effort to ensure that my 
daily activities and those of the entire Office of Public Affairs team 
are governed by DOD Directive 5122.05 and in particular by the 
longstanding Principles of Information now incorporated within that 
Directive. If confirmed, I also plan to make every effort to reach out 
as appropriate to my counterparts and colleagues who share national 
security communications responsibilities--and to working with the 
Assistant Secretary of Defense for Legislative Affairs to reach out as 
appropriate to Congress--to focus on ways to better ensure that our 
individual and collective communications efforts are mutually 
reinforcing; play to the strengths we each bring to supporting 
America's national security objectives; better understand the strengths 
and weaknesses of the new communications and social media tools in 
realizing our policy goals; and take into account the specific 
audiences we each are addressing, be they domestic and/or 
international, as we develop and implement our individual and 
collective communications efforts. We must ensure that those efforts 
are reliable, credible, trustworthy, and help accomplish the goals that 
the administration and Congress have set.
                            responsibilities
    Question. DOD Directive 5122.05 provides that the ASD(PA) shall 
``ensure a free flow of news and information to the news media, the 
general public, the internal audiences of the Department of Defense, 
and the other applicable fora, limited only by the security restraints 
in DOD Directive 5200.1 and any other applicable statutory mandates or 
exemptions.''
    What guidelines would you use, if confirmed, to determine what 
information can and cannot be released to the news media and the 
public?
    Answer. The Department has longstanding Principles of Information, 
which are included as an enclosure to DOD Directive 5122.5. If 
confirmed, I would work to ensure that conclusions we reach regarding 
the dissemination of information are consistently based upon and 
reflect the principles outlined.
    Question. Aside from restrictions related to classified and 
sensitive-source materials, if confirmed, what restrictions, if any, 
would you apply in approving material prepared for release by DOD 
officials?
    Answer. As a general matter, the first principle of information is 
that it is ``DOD policy to make available timely and accurate 
information so that the public, Congress, and the news media may assess 
and understand the facts about national security and defense 
strategy.''
    There will be times when judgment is applied to a particular piece 
or class of information that warrants additional consideration on the 
basis of source, sensitivity of ongoing operations, the need to verify 
facts, and other factors. Judgments of this nature must be applied all 
the time, but the principle remains the same: accurate and fast.
    Question. If confirmed, how would you attempt to ensure that media 
representatives are given maximum access to ongoing military operations 
in Iraq and Afghanistan in order to be able to provide fair and 
accurate reporting?
    Answer. Perhaps the best and most effective way to ensure such 
access is to encourage news media to take full advantage of embedding 
opportunities. These opportunities were specifically designed to 
promote maximum access to ongoing military operation in Iraq and 
Afghanistan, and if confirmed, I would intend to continue this policy 
and facilitate these opportunities to the maximum extent possible.
            contractor performance of information operations
    Question. In October 2008, DOD announced a plan to award contracts 
in excess of $300 million to U.S. contractors to conduct ``information 
operations'' through the Iraqi media.
    What is your understanding of the appropriate scope of DOD 
information operations and the relationship between DOD information 
operations and the Department's public affairs activities?
    Answer. Information operations are distinct and separate from 
Public Affairs operations. Information operations encompass a wide 
variety of activities and capabilities that go far beyond efforts to 
engage local media.
    I believe it is important that public affairs, information 
operations, and other disciplines that operate in the global 
information environment work closely together to achieve synchronized 
effects and prevent conflicting messages and information. It is my 
understanding that DOD has a standing committee, the Global Engagement 
Strategic Coordination Committee (GESCC), where stakeholders meet to 
share information and coordinate DOD activities in the information 
environment, as well as other fora and processes to ensure both 
internal Department and interagency coordination. It is my 
understanding that DOD is putting processes and mechanisms in place to 
ensure that influence efforts are disciplined, accountable, effective, 
and appropriately targeted.
    Question. If confirmed, what role, if any, do you expect to play in 
determining the appropriate scope of DOD information operations through 
the media?
    Answer. I would expect that my office will work closely with 
Information Operations to understand how Commanders are trying to shape 
their operational environment and ensure that information activities 
are complementary, synchronized, credible and support U.S. Government 
and DOD goals. I expect to work with offices across DOD through the 
GESCC and other internal and interagency forums to coordinate and 
manage DOD information activities.
    Question. What is your view on the effectiveness of information 
operations conducted by the United States through the Iraqi media?
    Answer. It is my understanding that Information Operations is not 
the only means by which the U.S. Government engages the Iraqi 
population via the Iraqi media. Public Affairs and key leader 
statements and interviews are just a few of the many other ways to make 
a message available to the media. Effectiveness is achieved when Public 
Affairs, Information Operations, and other disciplines closely 
coordinate their activities to ensure consistency; credibility and 
appropriateness of activities and messages.
    Question. Do you believe that it is appropriate for the United 
States to pay for media campaigns to build up support for the 
government and the security forces of Iraq at a time when the Iraqi 
Government has a surplus of tens of billions of dollars?
    Answer. I have limited knowledge of the Iraqi Government's 
resources. That said, I believe that building support among the 
population for Iraqi governmental institutions and the rule of law is 
essential to the success of the U.S. mission in Iraq. Toward that end, 
it may be appropriate at some level to ensure resourcing for 
communication campaigns to further that goal. I believe the emphasis 
should always be on reinforcing the Iraqi Government's capabilities to 
communicate to their people. As with any allocation of U.S. taxpayer 
resources, DOD must be mindful of its responsibilities to the 
taxpayers, and use good judgment when allocating our resources.
    Question. Do you believe that the U.S. Government, or the Iraqi 
Government, should be responsible for developing a message to build up 
support for the government and security forces of Iraq, and for 
developing media campaigns for this purpose?
    Answer. Ideally, the Iraqi Government should develop its message 
and we should work closely with them to support and assist them in 
getting that message to the Iraqi people. Programs that build support 
for the Iraqi Government and security forces lead to increased force 
protection for U.S. forces. The responsibility for force protection 
rests with our military commanders. We need to retain the ability to 
develop messages and communicate those messages effectively to protect 
our servicemembers and achieve our objectives--but it is my 
understanding that, as we continue the transition to full Iraqi control 
of security, the need for and appropriateness of independent U.S. 
campaigns in this arena is decreasing.
    Question. In your view, is DOD's use of private contractors to 
conduct information operations through the Iraqi media appropriate?
    Answer. Private contractors can be a valuable asset for DOD, 
providing access to skills and expertise (e.g. media content 
development, media campaign development, media production, linguistic 
services, and cultural assessments) that are not widely resident in 
U.S. Government agencies. That said, it is my understanding that, as we 
continue the transition to full Iraqi control of security, the need for 
and appropriateness of independent U.S. campaigns in this arena, 
including by private contractors, is decreasing. I also want to stress 
my firm belief in close and ongoing oversight of all contractor 
activities.
    Question. Do you see a risk that a DOD media campaign designed to 
build up support for the government and security forces of Iraq could 
result in the inappropriate dissemination of propaganda inside the 
United States through the internet and other media that cross 
international boundaries?
    Answer. I have been informed that U.S. military commanders 
disseminate content in the foreign target audience language, dealing 
with regional issues, on sites that are of interest to the target 
audience. Indeed, our commanders take significant measures to prevent 
``inappropriate dissemination inside the United States.'' That said, we 
live in a continuous global information environment, where any product 
that is disseminated will likely migrate around the world. In this 
environment, it is always possible that some products might be picked 
up by users in the United States and/or republished--while that is a 
legitimate concern, I would respectfully characterize this result not 
as ``inappropriate dissemination of propaganda inside the United 
States'', but as the unintended consequences of living in a 
communications environment where technology sometimes seems to be ahead 
of the efforts to regulate its application and effects. I understand 
that DOD is working to enhance and increase its governance mechanisms 
for its information activities--both Information Operations (IO) and 
Public Affairs (PA)--and if confirmed, I will work closely with my IO 
counterparts in DOD to ensure that we make every effort to identify and 
correct cases where information activities directed at foreign 
audiences create confusion within the United States. If confirmed, I 
will also work to ensure that DOD web-based influence efforts are in 
compliance with DOD policy.
    Question. A spokesman for the Iraqi Government has been quoted as 
saying that any future DOD information operations in the Iraqi media 
should be a joint effort with the Iraqi Government. According to a 
November 7, 2008 article in the Washington Post, the spokesman stated: 
``We don't have a hand in all the propaganda that is being done now. It 
could be done much better when Iraqis have a word and Iraqis can 
advise.''
    Do you believe that DOD information operations through the Iraqi 
media should be conducted jointly with the Iraqis?
    Answer. I believe that all of our engagement now--not just 
information operations--with the Iraqi media should either be conducted 
jointly or at least closely coordinated with the Iraqis.
    Question. Under what circumstances do you believe that it is 
appropriate for DOD to conduct information operations in a sovereign 
country without the knowledge and support of the host country and 
without acknowledgement of U.S. sponsorship?
    Answer. I would not be able to give a knowledgeable or 
comprehensive response to this question without knowing more about 
current issues and implications relevant to presenting a meaningful 
response. If confirmed, I believe I will be able to respond to this 
question in a fuller and more knowledgeable way.
                       retired military officers
    Question. In April 2008, the New York Times reported that DOD had 
accorded special treatment and valuable access to retired military 
personnel who provided favorable commentary to the media, while not 
offering similar access to other analysts and cutting off access to 
some retired military personnel who provided less favorable commentary.
    What is your view of the appropriate relationship between DOD and 
retired military personnel who offer commentary on DOD operations and 
activities to the media?
    Answer. I am aware of the controversy that took place more than a 
year ago regarding the relationship between DOD and retired military 
personnel who offer commentary on DOD operations and activities to the 
media. Retired military personnel who offer commentary on DOD 
operations and activities to the media should be afforded the same 
access to publicly releasable information as members of the media in 
accordance with the principles of DOD Public Affairs. If confirmed, I 
will take a critical look at past practices so that we ensure equal 
access as we go forward.
    Question. What is your view of the propriety of DOD providing 
preferred treatment or increased access to retired military personnel 
who provide favorable commentary to the media?
    Answer. It is inappropriate and contrary to DOD policies to 
selectively benefit any individuals or groups, including retired 
military personnel, by providing them special treatment or increased 
access to DOD officials.
    Question. What is your view of the propriety of DOD reducing access 
to retired military personnel who provide unfavorable commentary to the 
media?
    Answer. Speedy and widespread access to DOD publicly releasable 
information must be made available to all, regardless of an 
individual's point of view. Such access is essential to maintaining the 
trust and confidence of our citizenry, regardless of the media 
commentary that follows.
    Question. Do you believe that DOD's existing rules and regulations 
adequately address this issue, or are additional rules and regulations 
needed?
    Answer. I don't now know all of the Departments existing rules and 
regulations relevant to this issue, but if confirmed, I'll examine the 
Department's existing policies and directives to ensure they 
appropriately address the issue of equal access to publicly releasable 
information.
                         profiling of reporters
    Question. In August 2009, Stars and Stripes (S&S), the editorially 
independent daily newspaper for the military community, reported that 
DOD was using a Washington public relations firm to compile profiles of 
reporters covering U.S. military operations in Afghanistan. According 
to the article, the profiles included ratings and pie charts purporting 
to depict whether the work of individual journalists was ``positive,'' 
``negative,'' or ``neutral,'' as well as advice on how best to place a 
reporter with a military unit to ensure positive coverage and 
``neutralize'' negative stories.
    What is your view of the propriety of DOD rating journalists as 
``positive,'' ``negative,'' or ``neutral''?
    Answer. While I am not familiar with all aspects of this case, I 
understand that the contract to assess reporters and their work had 
been issued by one particular command in Afghanistan and that the 
contract is no longer in effect. I don't believe in any system that 
``rates'' reporters based on a perception that their reporting is 
positive or negative. Our focus should be the accuracy of the facts 
conveyed, and if and when errors are made, we should act to correct the 
record.
    DOD has a long history of enabling news media representatives of 
all kinds--print, photo, TV and radio--to view the Department's 
operations first-hand, regardless of any perception that a particular 
reporter or his or her news product was ``supportive'' or ``non-
supportive'' on a given military issue. If confirmed, I fully intend to 
continue in this tradition
    Question. In your view, should DOD be taking affirmative action to 
manage the placement of individual reporters to ensure positive 
coverage and neutralize negative stories?
    Answer. No. In my view, we should never be a party to efforts to 
place so-called ``friendly reporters'' into embeds while blocking so-
called unfriendly reporters.
    Question. Do you believe that DOD's existing rules and regulations 
adequately address this issue, or are additional rules and regulations 
needed?
    Answer. I am not completely familiar with all of the DOD's existing 
rules and regulations regarding this issue--particularly those which 
may have been designed and implemented after I completed my tenure as 
Principal Deputy ASD(PA). From what I do know, I believe DOD has an 
effective set of ground rules in place for the media to embed in a fair 
and impartial way. While I recognize there is not always a perfect 
relationship between the Department and the media or the military and 
the media, if confirmed, I will work to foster a mutual respect between 
the Department and the media for one another's professional needs and 
do my utmost to strengthen and improve these working relationships.
            principles of information and privacy interests
    Question. Under the Principles of Information included in DOD 
Directive 5122.05, it is stated that ``information will be withheld 
only when disclosure would adversely affect national security, threaten 
the safety or privacy of the men and women of the Armed Forces, or if 
otherwise authorized by statute or regulation.'' The Privacy Act is one 
of the laws that control access to information in government systems of 
records, however, it is unclear about what standards the Department 
applies in determining what information would violate individual 
privacy and should be withheld.
    What other standards, legal or otherwise, should be applied by the 
Department in determining what information relating to individuals who 
are involved in newsworthy incidents shall be made available to the 
public?
    Answer. I believe in maximum disclosure and minimum delay 
consistent with the facts, circumstances and privacy and security 
considerations of each case. If confirmed, I would apply these 
principles, including to those cases that require the involvement of 
the Department's Office of General Counsel.
    Question. Under what circumstances, if any, do you believe the 
Privacy Act would justify withholding from public disclosure 
information regarding actions taken by senior DOD officials in their 
official capacity?
    Answer. I recognize that DOD is required by law to protect the 
privacy of individuals--including DOD civilian and military employees 
and contractors. However, there are numerous mechanisms, such as the 
Freedom of Information Act which offer means by which information can 
be requested relating to official actions of DOD personnel. I believe 
the department has to strike the right balance between an individual's 
right to privacy and the public's right to know.
    Question. Under what circumstances, if any, do you believe the 
Privacy Act would justify withholding information from Congress?
    Answer. If confirmed, my focus would be on being responsive to 
Congress and the public. I would consult with department's legal 
authorities for an assessment and guidance in any instance where 
Federal statute or government directives limit that ability.
                           stars and stripes
    Question. S&S is an editorially independent news organization, but 
it is also authorized and funded in part by DOD. In the past, 
representatives of the Society of Professional Journalists have 
asserted that the Office of the Secretary of Defense (OSD) and the 
American Forces Information Service (AFIS) have attempted to improperly 
use command influence in shaping the editorial content of the S&S 
newspapers and Web site.
    In your opinion, what is the appropriate journalistic role of the 
S&S newspapers and internet-based outlets within DOD?
    Answer. S&S has a long and rich history of serving the military 
community. The S&S organization has been established to be 
journalistically and editorially independent, and I can see no reason 
to change that.
    Question. What is your understanding of the role and 
responsibilities of the ASD(PA) and the Director of AFIS with regard to 
the operation of and reporting in the S&S newspapers?
    Answer. DOD Directive 5122.11 prescribes clear oversight and policy 
guidance roles over S&S for both the ASD(PA) and the Director of DMA, 
the organization that replaced AFIS.
    Question. The S&S Ombudsman serves as an independent advocate for 
the First Amendment rights of the organization's reporters and staff, 
as well as an intermediary between the staff, the Defense Department, 
the military commands and the readers.
    Do you support the assignment of an independent Ombudsman for S&S?
    Answer. Yes, I do support the role of an independent Ombudsman.
    Question. What guidance would you provide, if confirmed, with 
regard to the role, responsibilities and functions of the S&S 
Ombudsman?
    Answer. If confirmed, I expect to work with the Ombudsman and to 
rely upon him or her to provide advice and counsel on the proper 
functioning of the S&S.
    Question. In the past, S&S Ombudsmen have reported that access to 
information varies from base to base and is a continuing issue for S&S 
reporters. The Ombudsman stated that the failure to revise and update 
the governing directive, DOD Directive 5122.11, dated October 5, 1993 
(certified as current in 2004), ``leaves open the chances of 
misunderstanding and conflict between the paper and commands over the 
role of S&S reporters, especially on base.''
    In your view, is the guidance for access of S&S reporters to 
sources and information on military installations clearly articulated 
in governing policy directives?
    Answer. I have not reviewed governing policy directives since I 
concluded my tenure as Principal Deputy ASD(PA) in January 2001. If 
confirmed, I will review those policy directives to ensure there is 
clarity and consistency.
    Question. If confirmed, will you agree to review DOD Directive 
5122.11 and to revise and update it if warranted?
    Answer. Yes.
    Question. Rising costs of producing a newspaper, competition with 
the internet and commercial news sources, and budgetary pressures to 
cut costs have raised questions about the level of support that the 
Department and military commanders throughout the chain of command 
should give to S&S.
    In your opinion, what efficiencies, if any, regarding business 
operations, operating expenses, sources of income, and DOD guidance 
regarding command sponsorship of need to be implemented to achieve more 
effective and efficient operations.
    Answer. My understanding is that S&S has already taken a number of 
actions to streamline operations, conserve resources and save money. If 
confirmed, I will work to ensure that, at a time when financial 
resources are not unlimited, that this vital service continues to 
provide news and information to the military community as efficiently 
and cost-effectively as possible.
                    social networking sites and dod
    Question. Social networking web sites such as Facebook, Twitter, 
and MySpace present unique challenges for the Armed Forces with respect 
to protection of classified or official information and vulnerability 
for hackers to gain access to military networks.
    If confirmed, what will your responsibilities be with respect to 
establishing DOD-wide policies relating to access to social networking 
sites on military computers or phones?
    Answer. It is my understanding that senior Department officials are 
currently reviewing a number of issues surrounding use of social 
networking sites and internet based capabilities and will be 
determining DOD-wide policies relating to access to social networking 
sites from military computer systems. The public affairs role will be 
to provide policy and public affairs guidance on the best and most 
effective use of these communication tools.
    Question. What do you view as the key issues in determining whether 
there should be a uniform DOD policy in this regard? Do you think that 
each Service should establish its own policies with respect to 
conditions for access to such networking sites?
    Answer. To the extent Internet-based capabilities provide 
enterprise functionality, their use requires an enterprise-wide policy 
that will enable the joint collaboration that DOD needs to be 
successful in the current communications environment. Coordinated DOD 
policy on internet capabilities and social networking must take into 
account the real security and bandwidth concerns that apply to certain 
missions, and we must recognize that commanders in those situations 
must retain the flexibility to regulate their environments. If 
confirmed, I am prepared to help consider, develop and implement DOD 
policies within this framework.
                        review of the early bird
    Question. On a daily basis, the Office of the Secretary of Defense 
compiles current news articles from around the Nation and the world and 
provides them on the http://ebird.osd.mil.
    Please describe the policies and review mechanisms currently in 
place that are relied on to select articles for publication in the 
Early Bird?
    Answer. The Early Bird aims to provide a representative, balanced 
and impartial sampling of articles, broadcast segments, and online 
reporting/commentary reflecting important developments on the key 
issues with which the Defense Department is dealing.
    There are broad guidelines to ensure that the Early Bird presents 
timely and accurate news and media commentary. My understanding is that 
the ASD(PA) and other members of the OSD/PA team regularly review Early 
Bird procedures to ensure that this daily news compendium remains 
useful to senior DOD decisionmakers and that it adapts to the changing 
news media landscape.
    Question. What do you consider to be the appropriate objectives in 
publishing the Early Bird and, if confirmed, what standards would you 
rely upon to achieve these objectives?
    Answer. I believe the Early Bird should provide a daily news 
compendium that provides an objective, representative sampling of news 
and commentary reflecting important developments on the key short- and 
long-term issues with which the Defense Department is dealing. The 
information should be chosen on a non-political basis and should be 
timely and relevant. If confirmed, I will make every effort to ensure 
that the Early Bird gives its readers a representative, balanced and 
impartial daily monitor of defense-related newspaper, broadcast, cable, 
and online (including blogs) news and opinion.
                       freedom of information act
    Question. If confirmed, what would your role and responsibilities 
be, if any, with regard to DOD's implementation of the requirements and 
interpretation of the Freedom of Information Act?
    Answer. If confirmed, I would do my part to ensure that information 
sought under the act would be released expeditiously, although it is my 
understanding that Washington Headquarters Services is the DOD 
proponent responsible for the Freedom of Information Act program.
    Question. If confirmed, what responsibilities would you have within 
DOD under the Privacy Act and how would you fulfill those 
responsibilities?
    Answer. Public officials across Government have an obligation to 
respect and protect the privacy of individuals. The need to provide 
information to the public quickly and accurately in accordance with the 
principles of information must always take into account the importance 
we must attach to not violating the privacy of individuals as a result 
of disclosing that information.
    If confirmed, I will work to ensure that the Department's 
communications and public affairs personnel understand their 
obligations and that training is available to ensure that.
                            detainee photos
    Question. In October 2008, the U.S. Court of Appeals for the Second 
Circuit ruled in favor of a Freedom of Information Act request 
regarding photographs purportedly showing the abuse of detainees in 
Iraq and Afghanistan. In October 2009, Congress passed and the 
President signed a statute authorizing DOD to withhold such photographs 
from disclosure if such disclosure would endanger U.S. troops serving 
abroad. After the Secretary of Defense signed the required 
certification on November 30, 2009, the Supreme Court vacated the 
Second Circuit ruling.
    What is your view of the extent to which photographs and other 
information regarding U.S. military operations should be withheld from 
the public and the press on the ground that the disclosure of such 
photographs and information would endanger U.S. troops serving abroad?
    Answer. I understand that current DOD media ground rules for combat 
operations are based on two important and overriding principles: 
protecting the operational security of our forces and preserving the 
sanctity of our next-of-kin notification process I believe these 
principles, and not questions regarding potential embarrassment that 
are not directly linked to protecting the operational security of our 
forces, should remain the guiding factors. I also believe strongly that 
the families of those killed or wounded in service of our country 
should be notified, in person whenever possible, by uniformed 
representatives, not notified through news media reports. The Defense 
Department and the members of the press corps each have roles and 
responsibilities that define their actions, and each are responsible 
for exercising good judgment in carrying out those roles and 
responsibilities. I believe that news organizations should apply those 
standards and take into account the wishes of the family before 
publishing photos of dead or mortally wounded servicemembers.
    Question. How, in your view, should we draw the line between the 
withholding of information to protect U.S. troops and the withholding 
of information to save the United States from potential embarrassment 
over improper or inappropriate conduct?
    Answer. I believe the DOD Principles of Information appropriately 
draw that line. Those Principles state, in part, that information will 
not be classified or otherwise withheld to protect the Government from 
criticism or embarrassment but it does allow for information to be 
withheld when disclosure would adversely affect national security, 
threaten the safety or privacy of U.S. Government personnel or their 
families, violate the privacy of the citizens of the United States, or 
be contrary to law.
    Question. Do you believe that the Freedom of Information Act, the 
Privacy Act, and DOD implementing policies adequately address this 
issue, or are additional statutory changes or regulatory guidance 
needed?
    Answer. With the additional authorities granted by the President, I 
think the current rules, regulations, and authorities now in place 
allow the Department to conduct military operations with the maximum 
amount of transparency possible, addressing the need to ``make 
available timely and accurate information so that the public, Congress, 
and the news media may assess and understand the facts about national 
security and defense strategy'', as outlined in the Principles of 
Information, while also fulfilling the very real need to do everything 
we can to safeguard the lives of our troops. If confirmed, I would plan 
to work on an ongoing basis with the Department's legal authorities to 
ensure that the Freedom of Information Act, the Privacy Act and DOD 
implementing policies are reviewed regularly and, when or if necessary, 
updated to continue to meet these standards.
              american forces radio and television service
    Question. DOD Regulation 5120.20-R includes in the mission of the 
American Forces Radio and Television Service (AFRTS) a responsibility 
``(t)o provide U.S. military members, DOD civilians, and their families 
stationed outside the Continental United States and at sea with the 
same type and quality of American radio and television news, 
information, sports, and entertainment that would be available to them 
if they were in the CONUS.'' In describing policy for political 
programming, this regulation states ``All AFRTS political programming 
shall be characterized by its fairness and balance'' and shall maintain 
``equal opportunities'' for political programs.
    What is your understanding of the term ``political programming'' as 
used in DOD Regulation 5120.20-R and how it applies to programs 
featuring partisan political commentary?
    Answer. My understanding is that AFRTS, like all U.S. radio and 
television networks and stations, must follow Federal Communications 
Commission (FCC) policies and definitions. The FCC defines ``political 
programming'' as programming paid for by a political candidate or 
organization. If confirmed, I shall ensure that AFRTS continues to 
adhere to the FCC policies on Political Broadcasting and Cablecasting, 
which requires ``equal opportunities'' for political candidates and 
organizations.
    Question. What is your understanding of the concept of ``fairness 
and balance'' in the context of the Armed Forces and AFRTS?
    Answer. My understanding is that ``Fairness and Balance'' requires 
AFRTS to provide an impartial selection of political programming chosen 
from all U.S. national commercial and public networks, and that AFRTS 
and its outlets maintain the same ``equal opportunities'' balance 
offered by these sources.
    Question. What is your understanding of the process and procedures 
used to select and oversee political programming broadcast on the AFRTS 
network?
    Answer. My understanding is that there are published policies and 
procedures in place within AFRTS to ensure that the decisionmaking 
process and procedures are properly documented and meet the 
requirements of applicable DOD directives and regulations for providing 
uncensored and ``fair and balanced'' programming for the AFRTS 
audience. If confirmed, I will actively work to ensure ongoing review 
that these procedures are implemented.
    Question. What effect do listener surveys and statistical data 
regarding national popularity, if any, have on program selection? In 
your view, what effect should they have?
    Answer. My understanding is that AFRTS conducts audience surveys at 
both the worldwide and local level. I have been informed that the 
results of these surveys are combined with weekly U.S. national 
programming ratings from Nielsen (television), Arbitron (radio), and 
monthly ratings from Talkers Magazine (radio talk/commentary programs) 
as guides in selecting programming for distribution on AFRTS. Since the 
AFRTS mission is to provide the best and most popular American 
television and radio programming to its audience, these surveys, the 
AFRTS demographics, and national ratings are important tools for 
determining AFRTS programming selection and scheduling, and should 
continue to be among the important barometers in ensuring that AFRTS 
provides fair and balanced programming for its listeners.
    Question. If confirmed, how will you ensure that the requirement 
for fairness and balance and equal opportunity in political programming 
is fulfilled?
    Answer. I believe that the dedicated corps of civil servants and 
Active Duty military personnel who are responsible for AFRTS 
programming have made every effort to ensure the fairness and balance 
of AFRTS programming for over 67 years. I have great respect for the 
men and women who serve in both civilian and military capacities at the 
Department, including the men and women responsible for AFRTS 
programming, and if confirmed, I will both rely on their 
professionalism and experience, and ensure that they continue to comply 
with the applicable DOD directives and regulations.
                  american forces information service
    Question. American Forces Information Service (AFIS) produces news, 
feature articles, and television reports on all aspects of military 
life. These products focus on what senior defense leaders are saying on 
all aspects of military life. News and feature articles are uploaded 
throughout the day, 7 days a week. Television news reports are 
available daily on the Web and are broadcast on the Pentagon Channel.
    In your view, what long-term goals should the Department support 
for AFIS?
    Answer. I believe that the Department long-term goals for DMA 
should be that DMA provide the very best internal communications 
services and products possible, and that it is fully resourced to 
accomplish this mission. (See below for an explanation of the 
transition from AFIS to DMA)
    Question. If confirmed, would you support expanding or increasing 
AFIS services?
    Answer. If confirmed, my intent in this area would be to ensure DMA 
adopts and maximizes the use of the most relevant and effective media 
technology; e.g. social media, to communicate the Department's 
policies, programs and activities to the Department's internal 
audience. (See below for an explanation of the transition from AFIS to 
DMA)
    Question. In December 2008, the DOD Inspector General reported that 
Assistant Secretaries of Defense for Public Affairs had failed to 
appoint an AFIS Director for more than 7 years. The Inspector General 
reported that this failure had allowed the misuse of AFIS budgetary 
resources to support OASD(PA) programs, jeopardized AFIS resources, and 
subjected those resources to abuse.
    If confirmed, what steps if any would you take to ensure 
appropriate segregation of duties between the policy and oversight 
functions in the OASD(PA) and the operational functions that AFIS 
performs?
    Answer. First, it is my understanding that the 2005 Defense Base 
Closure and Realignment Commission recommendations required the DOD to 
consolidate Service Media Activities into a DOD Field Activity under 
the ASD(PA)--with the new Defense Media Activity (DMA) to be located at 
Fort Meade, MD. As a result of this consolidation, on October 1, 2008, 
AFIS and Service personnel and resources were placed under operational 
control of DMA (no longer AFIS). My understanding is that new DOD 
directives published recently for the OASD(PA) and DMA organizations, 
and guidance provided previously by the Principal Deputy ASD for Public 
Affairs have already provided policies and made organizational changes 
that ensure an appropriate segregation of the policy and oversight 
functions in OASD(PA) and the operational duties of DMA. If confirmed, 
I will continue to enforce those policies and sustain the 
organizational changes.
                          america supports you
    Question. In November 2004, DOD established the America Supports 
You (ASY) program, with the stated objective of showcasing and 
communicating to U.S. military members the support of the American 
people, as expressed by individuals and through community groups, 
corporations, businesses, and other organizations. In December 2008, 
the DOD Inspector General reported that the Office of the ASD(PA) had 
inappropriately transferred funds to S&S to finance ASY activities; 
awarded more than $8 million in contracts to a public relations firm 
managed by a close friend of a senior official in the office; allowed 
the firm to use the ASY name and logo to collect monetary donations for 
a privately-managed ASY fund; engaged in inappropriate fundraising 
activities, including the solicitation of contributions from 
corporations; and used the ASY program to solicit support from 
celebrities and the media.
    What is your understanding of the current status of the ASY 
program?
    Answer. It is my understanding that the ASY program has been 
reviewed and redesigned as a communications outreach initiative that is 
part of the broader DOD Community Relations mission. But I am not 
familiar with all of the specifics of the redesigned program.
    Question. What is your view of the program?
    Answer. I am not familiar with the details of the ASY program as 
currently constituted. I believe that it is important to make sure that 
our men and women in uniform know what thousands of individual 
citizens, community groups, businesses and others are doing to support 
them and their families both at home and abroad. But any programs 
through which the Department communicates that information to the 
military must be designed and administered in financially and legally 
responsible ways. If confirmed, I will review the Inspector General 
Audit report and ensure appropriate internal management controls are in 
place so that any and all community relations initiatives are carried 
out within the framework of DOD policies and regulations.
    Question. What role do you believe DOD should play in engaging with 
community groups, corporations, businesses, and individuals to solicit 
or encourage support for military members engaged in missions overseas?
    Answer. Having served as the Principal Deputy ASD(PA), I know that 
the civilian and military staff who works in the Office of Community 
Relations work very hard to foster public awareness and understanding 
of DOD missions, personnel, facilities, equipment and programs through 
various activities. Engaging with key sectors of U.S. society enables 
the Office of Community Relations to provide information, facts and 
figures that promote that awareness and understanding. When members of 
the public ask how they can help our men and women in uniform, the 
Department helps to serve the men and women of the military by being 
able to respond to those questions, and inform the public about ways in 
which they can engage and support the troops and their families.
    Question. To what extent do you believe it is appropriate for DOD 
to engage public relations firms to assist it in engaging with the 
American public in support of military members engaged in missions 
overseas?
    Answer. I believe that private contractors can often provide access 
to skills and expertise that may not be readily available in the 
Department. However, there should be appropriate oversight of all 
contractor activities.
    Question. Do you believe that DOD's existing rules and regulations 
adequately address these issues, or are additional rules and 
regulations needed?
    Answer. I am not familiar with changes or updates that may or may 
not have been made to existing DOD rules and regulations since I 
concluded my tenure as Principal Deputy ASD(PA). At this point, it is 
my sense that the Department's existing rules and regulations do 
address the issue of fostering community relations and public awareness 
of DOD missions, people, facilities, equipment, and programs. However, 
I believe that the public and the military are best served by a process 
of ongoing policy review, to ensure that as the world and missions 
change, the Department can be adaptable. If confirmed, I would be 
committed to regular evaluation of organizational structures and 
effective use of internal management controls to ensure that Public 
Affairs policies, programs, and guidelines remain relevant, balanced, 
and fair.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(PA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee of Congress, or to consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
             Question Submitted by Senator Roland W. Burris
                           release of photos
    1. Senator Burris. Mr. Wilson, what do you envision will be your 
role in addressing whether photographs purportedly showing the abuse of 
detainees in Iraq and Afghanistan should be released to the public and 
whether doing so will endanger U.S. troops serving abroad?
    Mr. Wilson. Department of Defense Directive 5122.05 outlines the 
responsibilities and functions of the Assistant Secretary of Defense 
for Public Affairs as the Principal Staff Assistant and advisor to the 
Secretary and Deputy Secretary of Defense for communications and media 
relations including news media relations, public liaison, and community 
relations. I believe that directive outlines the role I would play, if 
confirmed, in addressing whether such photographs should be released to 
the public and whether doing so will endanger U.S. troops serving 
abroad.
    Within that framework, I also pledge to adhere, if confirmed, to 
the Principles of Information encoded in Directive 5122.05, which state 
that ``Information will not be classified or otherwise withheld to 
protect the Government from criticism or embarrassment. Information 
will be withheld only when disclosure would adversely affect national 
security or threaten the safety or privacy of the men and women of the 
Armed Forces.''
    With the additional authorities granted by the President, I think 
the current rules, regulations, and authorities now in place allow the 
department to conduct military operations with the maximum amount of 
transparency possible, while also fulfilling the very real need to do 
everything we can to safeguard the lives of our troops.
                                 ______
                                 
    [The nomination reference of Douglas B. Wilson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  December 3, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Douglas B. Wilson, of Arizona, to be an Assistant Secretary of 
Defense, vice Dorrance Smith, resigned.
                                 ______
                                 
    [The biographical sketch of Douglas B. Wilson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Douglas B. Wilson
                               education
College:
    1968-1972: Stanford University, Stanford, CA: Bachelor's degree in 
political science, Phi Beta Kappa
Graduate School:
    1972-23: Fletcher School of Law and Diplomacy, Tufts University, 
Medford, MA, Master's degree in international relations
                           employment record
Current Job:
    June 2009-present: Executive Vice President (Policy), The Howard 
Gilman Foundation
Previous Jobs:
    July 2007-June 2009: President, The Leaders Project
    September 2005-September 2007: Vice President and Managing 
Director, Seattle Office, Penn, Schoen & Berland;

        <bullet>  September 2007-April 2008, Senior Consultant, Penn, 
        Schoen & Berland, LLC

    March 2002-September 2005: Vice President, The Cohen Group

        <bullet>  May-November 2004: Arizona State Director, Kerry-
        Edwards 2004

    January 2001-March 2002: Vice President for Strategic Development, 
Business Executives for National Security
    July 1997-March 1999; June 2000-January 2001 -Deputy Assistant 
Secretary of Defense for Public Affairs and Principal Deputy Assistant 
Secretary of Defense for Public Affairs
    March 1999-June 2000: Political Director, Democratic Leadership 
Council
    January-July 1997: Senior Advisor, U.S. Information Agency
    May-November 1996: Arizona State Director, Democratic Coordinated 
Campaign
    January 1993-May 1996: Director, Office of Congressional and 
Intergovernmental Affairs, U.S. Information Agency
    May 1989-January 1993: Founder and President, Douglas Wilson & 
Associates, Inc.
    August 1987-May 1989: Chief of Trade and Protocol, City of Phoenix, 
and Executive Director, Phoenix Sister Cities Commission (Note: I also 
served in both positions on contract with my company, Douglas Wilson & 
Associates, from May 1989-June 1992)
    June 1981-May 1987: Foreign Policy Advisor to Senator Gary Hart

        <bullet>  Served with the ``Hart for President'' campaign 1983-
        June 1984

    October 1974-June 1981: Foreign Service Information Officer, U.S. 
Information Agency

        <bullet>  Director, American Cultural Center and Deputy Public 
        Affairs Officer, U.S. Consulate-General, Naples, Italy (1974-
        1975)
        <bullet>  Deputy Program Officer, U.S. Embassy, Rome, Italy 
        (1975-1977)
        <bullet>  Assistant Cultural Affairs Officer, U.S. Embassy, 
        London (1977-1979)
        <bullet>  First Secretary for Press and Information, U.S. 
        Embassy, London (1979-1981)

Consultancy:
    2002-December 1, 2009: Consultant (communications) for The Boeing 
Company
    September 2008-April 2009: Periodic consultant (communications) for 
Compass Partners (Sammamish, Washington)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Douglas B. 
Wilson in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Douglas Barry Wilson.

    2. Position to which nominated:
    Assistant Secretary of Defense for Public Affairs.

    3. Date of nomination:
    December 3, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 29, 1950; Tucson, AZ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced since 1987, ex-wife: Jane Daniel.
    Partner since 1996: Thomas W. Wharton.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1964-1968: Rincon High School, Tucson, AZ--high school diploma.
    1968-1972: Stanford University, Stanford, CA: Bachelor's degree in 
Political Science, Phi Beta Kappa.
    1972-1923: Fletcher School of Law and Diplomacy, Tufts University, 
Medford, MA--Master's degree in international relations.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    June 2009-present: Executive Vice President (Policy), The Howard 
Gilman Foundation. Work from home office in Delaware. Foundation is 
located in New York City, NY.
    June 2002-Dec. 2009: Consultant (communications),The Boeing 
Company. Work from home office in Delaware. Reporting offices are in 
Arlington, VA (Rosslyn and Crystal City).
    May 2002-June 2009: President, The Leaders Project, nonprofit 
organization focusing on identifying and bringing together successor 
generation leaders from around the world and from all walks of life to 
promote the development of new networks and new thinking on issues of 
current and continuing international concern. I am cofounder and have 
been president of the organization since its inception in 2002. I was 
paid by the organization from July 2007-June 2009. Worked from home in 
Seattle, WA, July 2007-June 2008. Worked from home in Rehoboth Beach, 
DE, June 2008-June 2009.
    September 2005-April 2008. Penn, Schoen & Berland, LLC. (PSB) a 
research-based strategic communications firm. I served full-time as 
Vice President and Managing Director of the firm's Seattle Office from 
September 2005-September 2007, when I became a part-time employee of 
the firm in order to turn my attention full time to The Leaders 
Project. Worked from PSB offices in Bellevue, WA, from September 2005-
September 2007. Worked from home in Seattle, WA from September 2007-
April 2008.
    March 2002-September 2005: Vice President, The Cohen Group (TCG) a 
strategic consulting firm headed by former U.S. Secretary of Defense 
William Cohen. My work was primarily in strategic communications. 
Worked from TCG offices in Washington, DC.

    <bullet>  May-November 2004. With concurrence of my employer, I 
took a leave of absence to serve as Arizona State Director for the 2004 
Kerry-Edwards Presidential campaign, working from Arizona Democratic 
Party offices in Phoenix, AZ.

    January 2001-March 2002: Vice President for Strategic Development 
for Business Executives for National Security (BENS), a nonprofit 
organization which brings together business executives from across the 
Nation to apply their experience and expertise to national security 
issues. I worked from BENS offices in Washington, DC.
    July 1997-March 1999; June 2000-January 2001: First as Deputy 
Assistant Secretary of Defense for Public Affairs, then as Principal 
Deputy Assistant Secretary of Defense for Public Affairs. I worked at 
the Pentagon.
    March 1999-June 2000: Political Director for the Democratic 
Leadership Council (DLC). I worked at DLC headquarters in Washington, 
DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    January 1993 - Assistant to USTR-designate. Assisted U.S. Trade 
Representative-designate Mickey Kantor during Bush-Clinton transition 
period, including help as requested with organization of USTR office 
and Senate confirmation proceedings.
    August 1987-June 1992 - Chief of Trade and Protocol and Executive 
Director, Phoenix Sister Cities Commission, City of Phoenix, AZ. First 
as a free-lance contractor, then as head of consulting firm (see 
above), created and developed a fully-integrated international office 
for the City of Phoenix and coordinated Phoenix Sister Cities 
Commission programs.
    October 1994-July 1997 - U.S. Information Agency. From October 
1994-June 1996, I was the Director of Congressional and 
Intergovernmental Affairs. From January 1997-July 1997, I was a senior 
advisor to the director.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Founding Chairman, Board of Directors, The Public Diplomacy 
Collaborative at Harvard University
    Executive Vice President (Policy), The Howard Gilman Foundation
    Member, Board of Directors, Third Way (nonprofit organization)
    Member, Board of Directors, National Security Network (nonprofit 
organization)
    Member, Board of Directors, HDI (Humpty-Dumpty Institute) 
(nonprofit organization)
    Member, Board of Directors, U.S. Center for Citizen Diplomacy 
(nonprofit organization)
    Periodically do consulting work for Compass Partners, a research-
based communications partnership based in Seattle, WA (Sammamish).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See answer to question 11 above.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    September-November 1992: Volunteered as Political Director for the 
Arizona Clinton-Gore presidential campaign.
    June-November 1996: Director, Arizona Democratic Coordinated 
Campaign
    May-November 2004: Arizona State Director, Kerry-Edwards 2004 
presidential campaign
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    May-November 2004: Arizona State Director, Kerry-Edwards 2004 
presidential campaign
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $2,000 - 2004 Kerry for President
    $2,000 - 2004 Lieberman for President
    $1,000 - 2004 Gephardt for President
    $500 - February 23, 2004, Arizona Democratic Party
    $1,000 - March 30, 2004Erskine Bowles for U.S. Senate (NC)
    $500 - May 13, 2004 - Raul Grijalva for U.S. Congress (AZ)
    $1,500 - June 25, 2004 - Raul Grijalva for U.S. Congress (AZ)
    $500 - May 3, 2005 - Friends of Martin O'Malley
    $1,000 - June 27, 2005 - Arizona Democratic Party
    $1,000 - September 28, 2005 - Cantwell 2006
    $500 - April 24, 2006 - Friends of Tammy Duckworth
    $1,000 - October 23, 2006 - Harry Mitchell for Congress
    $2,300 - July 14, 2007 - Hillary Clinton for President
    $2,300 - October 18, 2007 - Hillary Clinton for President 
(Contribution returned after her campaign ended)
    $1,000 - February 26, 2008 - Jeanne Shaheen for Senate
    $2,300 - June 19, 2008 - Obama for America
    $2,300 - September 22, 2008 - Obama Victory Fund
    $1,000 - May 19, 2009 - Richard Aborn for District Attorney (NYC)
    $1,000 - September 29, 2009 - Martin O'Malley Campaign
    $500 - September 2009 - Tommy Sowers for Congress
    $1,000 - November 16, 2009 - Pete for Indiana, Peter Buttegieg 
Campaign for Indiana State Treasurer

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Tucson Daily Citizen Annual Community Achievement Award (1968)
    Nominee, USIA's Leonard Marks Foundation Award for Creative 
Diplomacy (1980)
    USIA Nominee, William Jump Award for Exemplary Achievement in 
Public Administration (1981)
    American Political Science Association Congressional Fellowship 
(1981-82)
    Department of Defense Medal for Distinguished Public Service (1999 
and 2001)
    U.S. Coast Guard Meritorious Public Service Award (1999)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Soviet-Egyptian Relations: Opportunities and Complications,'' 
Stanford Quarterly Review (winter 1972).
    ``British Television Through Foreign Eyes,'' Television: The 
Journal of the Royal Television Society (London) (May-June 1981 issue).
    ``An article I wrote about the withdrawal of former U.S. Senator 
Gary Hart from the 1988 presidential race appeared in several 
publications in May 1987, including the Arizona Republic and the 
International Herald Tribune.
    I worked in Phoenix from 1987 until 1992, and wrote several guest 
opinion pieces for The Arizona Republic, including articles on Senator 
Hart, foreign policy and Arizona economic development.
    Dallas Morning News: November 1, 2003: Jill Schuker & Doug Wilson: 
Public diplomacy demands investment in people.
    Des Moines Register, August 25, 2008, Guest column: Use public 
diplomacy to boost U.S. image.
    Change for America Transition Book - Center for American Progress 
(November 2008) - I wrote the chapter on Public Diplomacy.
    Huffington Post - I am a periodic guest blogger on the Huffington 
Post, and have written three blogs to date:

        August 15, 2009: Remembering Ken Bacon
        August 8, 2005: PeterJennings
        July 10, 2005: Campaign for American Leadership in the Middie 
        East

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given a number of presentations, but none were formal or 
from prepared text, and none were on topics directly related to the 
position for which I've been nominated.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Douglas B. Wilson.
    This 14th day of December, 2009.

    [The nomination of Douglas B. Wilson was reported to the 
Senate by Chairman Levin on February 2, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 11, 2010.]
                              ----------                              

    [Prepared questions submitted to Dr. Malcolm Ross O'Neill 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. This milestone legislation is now more than 20 years old 
and has served our Nation well. I believe that the framework 
established by Goldwater-Nichols has significantly improved inter-
Service and joint relationships and promoted the effective execution of 
responsibilities. However, the Department, working with Congress, 
should continually assess the law in light of improving capabilities, 
evolving threats, and changing organizational dynamics. Although I am 
currently unaware of any reason to amend Goldwater-Nichols, if 
confirmed, I hope to have an opportunity to assess whether the 
challenges posed by today's security environment require amendments to 
the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I have no specific proposals to modify 
Goldwater-Nichols. As with any legislation of this magnitude, however, 
I believe it may be appropriate to review past experience with the 
legislation with a view toward identifying any areas in which it can be 
improved upon, and then consider with Congress whether the act should 
be revised.
    Question. Do you see the need for any change in the roles of the 
civilian and military leadership of the Department of the Army 
regarding the requirements definition, resource allocation, and 
acquisition processes?
    Answer. I have no specific proposals regarding the roles and 
assigned missions at this time, however, it may be appropriate to 
review roles of the civilian and military participants in this process 
with a view toward identifying areas that can be improved upon.
    Question. What do you believe should be the appropriate role of the 
Service Chiefs in the requirements, acquisition, and resource-
allocation process?
    Answer. It is my belief that the existing role of Service Chiefs in 
overseeing the Joint Requirements Oversight Council (JROC) in 
validating joint capabilities requirements is appropriate. Similarly, 
their collaboration in the resource allocation process is very 
important.
    Question. What do you believe should be the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. In my view the existing warfighting responsibilities of 
combatant commanders, and their role as cited in the Defense Department 
Reorganization Act of 1986, is appropriate. I support the Weapon 
Systems Acquisition Reform Act language that the input of combatant 
commanders must be considered in the development of joint requirements.
    Question. Do you see the need for any changes in the structure or 
operations of the JROC?
    Answer. I have no current basis to assess the effectiveness of 
either the structure or organization of the JROC at this time. However, 
based upon my past interaction with the JROC, I always felt that the 
USD(ATL) should have been a full member for the purpose of providing 
technical insights on various system options. Also, under certain 
circumstances, it would be helpful for Service Acquisition Executives 
to be invited to participate in the JROC.
                                 duties
    Question. Section 3016(b)(5)(A) of title 10, U.S.C., states that 
the principal duties of the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology (ASA(ALT)) shall be the overall 
supervision of acquisition, technology, and logistics matters of the 
Department of the Army.
    What is your understanding of the duties and functions of the 
ASA(ALT)?
    Answer. The ASA(ALT) is one of five assistant Secretaries of the 
Army. The principal duty of the ASA(ALT) is the overall supervision of 
acquisition, logistics, and technology matters within the Department of 
the Army. The ASA(ALT) serves, when delegated, as the Army Acquisition 
Executive, the Senior Procurement Executive, the Science Advisor to the 
Secretary, and as the senior research and development official for the 
Department of the Army. The ASA(ALT) also serves, when delegated, as 
the Army Science Advisor to the Secretary, and as the senior research 
and development official for the Department of the Army. The ASA(ALT) 
appoints, manages, and evaluates program executive officers and direct-
reporting program managers and manages the Army Acquisition Corps and 
the Army Acquisition Workforce. The ASA(ALT) executes the DA 
procurement and contracting functions, including exercising the 
authorities of the agency head for contracting, procurement, and 
acquisition matters pursuant to laws and regulations, the delegation of 
contracting authority; and the designation of contracting activities. 
He or she oversees the Army Industrial Base and Industrial Preparedness 
Programs and ensures the production readiness of weapon systems. The 
ASA(ALT) oversees all DA logistics management functions, including 
readiness, supply, services, maintenance, transportation, and related 
automated logistics systems management.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the ASA(ALT), as set forth in section 
3016(b)(5)(A) of title 10, U.S.C., or in Department of Defense (DOD) 
regulations pertaining to functions of the ASA(ALT)?
    Answer. I have no specific recommendations at this time. If 
confirmed, however, I look forward to the opportunity to serve in the 
position before recommending any potential changes in the duties and 
functions of the ASA(ALT).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Most recently, I served as a consultant and Chairman of the 
Board on Army Science and Technology (S&T) of the National Academies, 
responsible for leading a team of scientists, engineers, and policy 
experts who discern key Army technical issues and define the areas in 
which studies by the National Research Council can assist the Army to 
exploit advanced technologies in Army systems.
    From 2000 until my retirement from Lockheed Martin in 2006, I was 
Vice President and Chief Technical Officer of Lockheed Martin 
Corporation and provided staff supervision for Lockheed Martin's 
approximately 60,000 engineers and scientists, planned the independent 
R&D investment portfolio across the corporation, and sponsored 
cooperative technology development efforts with GE Global Research 
Center and Sandia National Laboratory.
    My acquisition, logistics, and technology experience spans 43 
years. I was a career Army officer serving for 34 years, having served 
as a uniformed acquisition specialist at the end of my career. I have a 
Ph.D. in Physics from Rice University, was a program manager for 
Defense Advanced Research Projects Agency (DARPA), the North Atlantic 
Treaty Organization (NATO), the Army, and the Strategic Defense 
Initiative Organization. I commanded the Army Laboratory Command and 
served in the Office of the Assistant Secretary of the Army for 
Research, Development and Acquisition. As Director of the Ballistic 
Missile Defense Organization, I was head of a contracting agency. All 
of these positions have cumulatively prepared me for this position if 
confirmed.
    Question. What background or experience do you have in the 
acquisition of major weapon systems?
    Answer. I was a program manager for DARPA, NATO, the Army, and the 
Strategic Defense Initiative Organization. Also, I was Director of the 
Ballistic Missile Defense Agency, an independent procurement activity 
reporting directly to the U.S. Department of Agriculture.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASA(ALT)?
    Answer. I believe that my experience provides a unique mix of 
qualifications that will enable me, if confirmed, to discharge the 
responsibilities of the Office. However, one must become familiar with 
the current situation and should always be looking for opportunities to 
expand knowledge to make well-informed decisions. If confirmed, I 
welcome the opportunity to visit Iraq and Afghanistan to better 
understand the acquisition footprint and how we can better support the 
soldiers on the ground.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the Secretary of the Army 
would prescribe for you?
    Answer. If confirmed, I would expect that I would be held 
accountable for the Army's acquisition, logistics, and technology 
efforts.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of the Army.
    Answer. If confirmed, I will support the Secretary of Army's 
priorities in acquisition, logistics, and technology.
    Question. The Under Secretary of the Army.
    Answer. If confirmed, I will support the Under Secretary of the 
Army, both in his role as the Under Secretary and in his role as Chief 
Management Officer.
    Question. The Chief of Staff of the Army.
    Answer. If confirmed, I will work with the Chief of Staff of the 
Army to ensure that our soldiers receive world class equipment and 
support to perform their missions within available resources.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Answer. If confirmed, I will work with the USD(AT&L) in connection 
with Army acquisition, logistics, and technology programs, and I will 
support the USD(AT&L) in the discharge of his responsibility to 
supervise DOD acquisition. I assume that my duties as Army Acquisition 
Executive will bring me into close working contact with the USD(ATL), 
and I am confident that our collaboration will be very beneficial for 
the Army and DOD.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I will work with the Director of Cost 
Assessment and Program Evaluation to support their efforts to provide 
DOD with independent analysis and resourcing assessments for weapons 
systems programs.
    Question. The Director of Operational Test and Evaluation.
    Answer. If confirmed, I will work with the Director of Operational 
Test and Evaluation to ensure appropriate operational testing oversight 
for Army acquisition programs.
    Question. The Director of Procurement and Acquisition Policy.
    Answer. If confirmed, I will work with the Director of Procurement 
and Acquisition Policy to ensure appropriate oversight for Army 
acquisition programs, procurement and contracting.
    Question. The Director of Defense Research and Engineering.
    Answer. If confirmed, I will work with the Director of Defense 
Research and Engineering to rapidly field technologies and capabilities 
to support ongoing operations and to ensure the Army and the Nation 
maintain a strong technical and engineering foundation to reduce the 
cost, acquisition time, and risk of our major defense acquisition 
programs.
    Question. The Director of Systems Engineering.
    Answer. If confirmed, I will rely on the expertise and advice of 
the Director, Systems Engineering, encourage early involvement in 
supporting acquisition programs, and consider his independent 
assessments and recommendations in decisions pertaining to Major 
Defense Acquisition Programs.
    Question. The Director of Developmental Testing.
    Answer. If confirmed, I will work with the Director of 
Developmental Testing for oversight of developmental testing for Army 
acquisition programs.
    Question. The Joint Requirements Oversight Council.
    Answer. If confirmed, I will work with the JROC to ensure maximum 
collaboration with other Military Services for joint programs to the 
benefit of the Department.
    Question. The Service Acquisition Executives of the other Military 
Departments.
    Answer. If confirmed, I will collaborate with the other Service 
Acquisition Executives to share information about relevant acquisition 
programs, seek opportunities to improve acquisition processes, and 
support the policies and practices of the Department.
    Question. The Assistant Secretary of the Army for Civil Works.
    Answer. If confirmed, I will work with the Assistant Secretary of 
the Army for Civil Works where relevant to Army acquisition programs 
and management of contracting.
    Question. The Chief Systems Engineer of the Army.
    Answer. If confirmed, I will ensure that the Chief Systems Engineer 
will become a highly visible and vital player within the ASA(ALT) 
office.
    Question. The Commander of the Defense Contract Management Agency.
    Answer. If confirmed, I will work with the Commander of the Defense 
Contract Management Agency to ensure effective administration of Army 
contracts.
    Question. The Defense Business Systems Management Committee.
    Answer. If confirmed, I will work with the Defense Business Systems 
Management Committee in connection with Army acquisition, logistics, 
and technology programs.
    Question. The Business Transformation Agency.
    Answer. If confirmed, I will work with the Business Transformation 
Agency in connection with Army acquisition, logistics, and technology 
programs.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration.
    Answer. If confirmed, I will work with the Assistant Secretary of 
Defense for Networks and Information Integration in connection with 
Army acquisition, logistics, and technology programs.
    Question. The Chief Information Officer of the Army.
    Answer. If confirmed, I will work with the Chief Information 
Officer of the Army in connection with Army acquisition, logistics, and 
technology programs.
    Question. The General Counsel of the Army.
    Answer. If confirmed, I will work with the General Counsel to 
ensure all Office of the ASA(ALT) actions comport with law, regulation, 
and policy.
    Question. The Inspector General of the Army.
    Answer. If confirmed, I will work with the Inspector General of the 
Army in connection with Army acquisition, logistics, and technology 
programs.
    Question. The Surgeon General of the Army.
    Answer. If confirmed, I will work with the Surgeon General of the 
Army in connection with Army acquisition, logistics, and technology 
programs
    Question. The Army Business Transformation Office.
    Answer. If confirmed, I will work with the Army's Chief Management 
Officer and the Office of Business Transformation in connection with 
Army acquisition, logistics, and technology programs.
    Question. The Judge Advocate General of the Army.
    Answer. If confirmed, I will work with the Judge Advocate General 
of the Army when appropriate.
    Question. The Auditor General of the Army.
    Answer. If confirmed, I will work with the Auditor General of the 
Army in connection with Army acquisition, logistics, and technology 
programs.
    Question. The Chief of the National Guard Bureau.
    Answer. If confirmed, I will work with the Chief of the National 
Guard Bureau to ensure that the National Guard receives world class 
equipment to perform their missions within available resources.
    Question. The Director of the Army National Guard.
    Answer. If confirmed, I will work with the Director of the Army 
National Guard to ensure that our soldiers receive world class 
equipment and the best logistic support to perform their missions 
within available resources.
    Question. The Principal Military Deputy to the Assistant Secretary 
of the Army for Acquisition, Technology, and Logistics.
    Answer. If confirmed, I will work with the Principal Military 
Deputy to the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology to ensure that appropriate oversight and 
direction is provided to the Army acquisition workforce and Army 
acquisition programs, policies, procedures and contracting efforts.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the ASA(ALT)?
    Answer. I believe the principal challenge facing the ASA(ALT) is 
effectively supporting the Army during a time of war while concurrently 
achieving essential and efficient modernization.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with senior Department of 
the Army officials, as well as the Office of the Secretary of Defense, 
to address these challenges and meet the acquisition priorities of the 
Secretary of the Army. Meeting these challenges will require a holistic 
focus on the overall Acquisition system that includes requirements 
generation, the allocation of fiscal resources, and sound acquisition 
program management. I would maintain emphasis on enhancing the 
acquisition workforce and on adopting sound business practices to 
ensure that the Army achieves the maximum benefit from its scarce 
fiscal resources.
    Question. What do you consider to be the most serious problems in 
the management of acquisition functions in the Army?
    Answer. I believe the shortage of human capital in the skill sets 
and quantities required presents an enormous challenge in executing the 
Army's acquisition mission.
    Question. What management actions and timetables would you 
establish to address these problems?
    Answer. I expect that it will take several years before the right 
skill sets are resident within the Army acquisition workforce, but I 
believe the Army has the flexibilities today to deliver warfighting 
capability more rapidly, and if confirmed, I will work to 
institutionalize those enablers and will also pay close attention to 
human capital planning and development.
                    major weapon system acquisition
    Question. Do you believe that the Army's current investment budget 
for major systems is affordable given historic cost growth in major 
systems, costs of current operations, projected increases in end 
strength, and asset recapitalization?
    Answer. I have not had the opportunity to assess the Army's current 
investment strategy for its' major defense acquisition systems; 
however, if confirmed I will become familiar with the various competing 
interests associated with the fielding of modern capability and the 
resource environment that supports this process.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I would work with the Army resource and 
requirements communities to assess the Army's major weapons systems 
programs to ensure that the Army's investment strategy for those 
systems is both affordable and operationally relevant.
    Question. What would be the impact of a decision by the Army to 
reduce purchases of major systems because of affordability issues?
    Answer. I do not yet have access to the information needed to 
assess what impact reducing the purchase of major systems would have on 
the Army. If confirmed, I will carefully consider potential impacts and 
ensure that any decisions made in this area is fully informed and based 
on all available information.
    Nearly half of DOD's 95 largest acquisition programs have exceeded 
the so-called ``Nunn-McCurdy'' cost growth standards established in 
section 2433 of title 10, U.S.C., to identify seriously troubled 
programs. Section 206 of the Weapon Systems Acquisition Reform Act of 
2009 tightened the standards for addressing such programs.
    Question. What steps if any would you take, if confirmed, to ensure 
sufficient transparency of technology development programs to ensure 
that uncontrolled cost growth or breaches of critical cost growth 
thresholds established in the ``Nunn-McCurdy'' provision are identified 
for appropriate action?
    Answer. The Weapon System Acquisition Reform Act of 2009 reinforces 
the oversight and reporting process for major programs. It will take 
some time for the results of these actions to be seen in individual 
acquisition programs. If confirmed, I would insist on clarity and rigor 
in the oversight of major programs to ensure the acquisition process 
supports the needs of the force and is a responsible steward of the 
resources available.
    Question. What steps if any would you take, if confirmed, to 
address out-of-control cost growth on Army's major defense acquisition 
programs?
    Answer. It is my understanding that cost growth in many Army 
programs has resulted from emerging requirements arising from operating 
in a wartime environment. If confirmed, I would insist on clarity and 
rigor in the oversight of major programs to ensure the acquisition 
process supports the needs of the force and is a responsible steward of 
the resources available.
    Question. What steps if any do you believe that the Army should 
consider taking in the case of major defense acquisition programs that 
exceed the critical cost growth thresholds established in the ``Nunn-
McCurdy'' provision?
    Answer. I am not currently familiar with the specific requirement 
imposed by law in cases where a program experiences a ``critical'' 
Nunn-McCurdy breach. However, to the extent that the law requires that 
actions be taken to determine whether a program should continue or be 
terminated, I will, if confirmed, insist on strict compliance with all 
statutory and regulatory requirements associated with the Nunn-McCurdy 
reporting process.
    Question. Do you believe that the office of the ASA(ALT), as 
currently structured, has the organization and resources necessary to 
effectively oversee the management of these major defense acquisition 
programs?
    Answer. I have not yet had the opportunity to assess this matter. 
If I am confirmed, I intend to conduct an assessment to ensure that the 
Office of the ASA(ALT) is structured and adequately resourced to 
effectively oversee the management of the Army's major defense 
acquisition programs.
    Question. If not, how would you address this problem?
    Answer. If confirmed, I intend to conduct an assessment to ensure 
that the Office of the ASA(ALT) is structured and adequately resourced 
to effectively oversee the management of the Army's major defense 
acquisition programs. If the structure of the ASA(ALT) office was not 
sufficient in either organization or resourcing to accomplish its 
statutory mission, I would make that fact clear to Army, DOD, and 
congressional leadership. I believe that, with the cooperation of 
executive and legislative bodies, we could work to resolve any issues 
of this nature.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. I am currently unaware of any reason to amend the Nunn-
McCurdy provision as revised by section 206 of the Weapon System Reform 
Act of 2009. However, if confirmed; I will have an opportunity to 
assess whether the challenges posed by the cost growth in major 
programs require amendments to the legislation.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. It is my view that a decision on whether to recommend 
terminating a program that has experienced critical cost growth under 
Nunn-McCurdy must be made on a case by case basis and must be fully 
coordinated with all stakeholders.
             systems engineering and developmental testing
    Question. One of the premises for the Weapon Systems Acquisition 
Reform Act of 2009 was that the best way to improve acquisition 
outcomes is to place acquisition programs on a sounder footing from the 
outset by addressing program shortcomings in the early phases of the 
acquisition process. The Defense Science Board (DSB) Task Force on 
Developmental Test and Evaluation reported in May 2008 that ``the 
single most important step necessary'' to address high rates of failure 
on defense acquisition programs is ``to ensure programs are formulated 
to execute a viable systems engineering strategy from the beginning.''
    Do you believe that the Army has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. Based on previous experiences, I believe the answer may be 
no. If confirmed, I will assess the state of the Army's capability in 
this discipline.
    Question. If not, what steps would you take, if confirmed, to build 
such organizations, resources, and capabilities in the Army?
    Answer. See response above.
    Question. Do you believe that the Nation as a whole is producing 
enough systems engineers and designers and giving them sufficient 
experience working on engineering and design projects to ensure that 
the Army can access an experienced and technically trained systems 
engineering and design workforce?
    Answer. No. The development of system engineering talent and the 
expanding of system engineering curricula in universities to include 
systems-of-systems is a major focus of industry. Good systems engineers 
are earning top dollar. More well-trained systems engineers can only 
benefit the United States.
    Question. If not, what do you recommend should be done to address 
the shortfall?
    Answer. If confirmed, I will work to enhance DOD's ability to 
compete with industry for this talent.
                         technological maturity
    Question. Over the last several years, the Government 
Accountability Office (GAO) has reported that private sector programs 
are more successful than DOD programs because they consistently require 
that new technologies achieve a high level of maturity before such 
technologies may be incorporated into product development programs. 
Section 104 of the Weapon Systems Acquisition Reform Act of 2009 
addresses this issue by tightening technological maturity requirements 
for major defense acquisition programs.
    How important is it, in your view, for the Army to mature its 
technologies with research and development funds before these 
technologies are incorporated into product development programs?
    Answer. In my view, it is very important to mature technologies 
within the research and development program. Research and development 
should be used to reduce program risk, by demonstrating that component 
technologies can be integrated into systems and perform as required in 
a relevant environment. Making the investment to mature technologies in 
research and development can reduce the risk of costly overruns in 
subsequent phases of the development process.
    Question. What steps if any would you take, if confirmed, to ensure 
that the key components and technologies to be incorporated into major 
acquisition programs meet the Army's technological maturity goals?
    Answer. If confirmed, I will ensure that all technologies are peer 
reviewed for maturity before they transition to a program of record, 
and ensure the application of recent DOD policy requiring early systems 
engineering activities prior to Milestone B.
    Question. Do you believe that the Army should make greater use of 
prototypes, including competitive prototypes, to ensure that 
acquisition programs reach an appropriate level of technological 
maturity, design maturity, and manufacturing readiness before receiving 
Milestone approval?
    Answer. Yes.
    Question. If so, what steps do you believe the Army should take to 
increase its use of such prototypes?
    Answer. It is my understanding that the use of competitive 
prototyping is already a key part of Army development programs. If 
confirmed, I will continue to emphasize its importance and ensure 
adequate resources are made available to support prototyping.
    Question. Section 2366a of title 10, U.S.C., requires the Milestone 
Decision Authority for a major defense acquisition program to certify 
that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
the Army complies with the requirements of section 2366a?
    Answer. If confirmed, I will ensure the Army conducts Technology 
Readiness Assessments (TRA) to document that technologies have reached 
an appropriate level of maturity before receiving Milestone B approval. 
I will also ensure that processes, tools, and resources are available 
to meet the requirements of section 2366a, and also ensure that MDAs 
are aware of their responsibilities as they pertain to section 2366a.
    Question. What is your view of the recommendation of the DSB Task 
Force on the Manufacturing Technology Program that program managers 
should be required to make use of the Manufacturing Readiness Level 
tool on all programs?
    Answer. While I have not had the opportunity to assess the DSB's 
recommendation, it has been my view, that program managers should be 
very sensitive to the manufacturing maturity of their systems, since 
the cost and performance of their programs could be significantly 
affected by a mistake in this area. Manufacturing Readiness Levels 
provide a tangible measure of manufacturing maturity which can be 
useful in helping them identify manufacturing risks earlier in the 
process.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Army take to increase 
accountability and discipline in the acquisition process?
    Answer. Although I have not had the opportunity to fully assess the 
current acquisition process, if confirmed, I will assess current 
milestone review and reporting processes and, in coordination with 
appropriate stakeholders and the Office of the Secretary of Defense, 
make appropriate adjustments, as appropriate.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 101 of the Weapon Systems Acquisition Reform Act 
of 2009 is designed to address this problem by establishing an 
independent Director of Cost Assessment and Performance Evaluation, who 
is charged with ensuring the development of realistic and unbiased cost 
estimates to support the Department's acquisition programs.
    Do you agree with the assessment that overly optimistic cost and 
schedule estimates and unrealistic performance expectations contribute 
to the failure of major defense acquisition programs?
    Answer. Yes.
    Question. If confirmed, how do you expect to work with the Director 
of the new office to ensure that the Army's cost, schedule, and 
performance estimates are realistic?
    Answer. The Director, CAPE has a key role in the 2366a and 2366b 
certification process, and as such, if confirmed, I will work closely 
with him to ensure that cost, schedule, and performance estimates are 
performed early, independently validated, and managed throughout a 
program's life cycle.
    Question. Section 201 of the Weapon Systems Acquisition Reform Act 
of 2009 seeks to address this problem by promoting early consideration 
of trade-offs among cost, schedule, and performance objectives in major 
defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget and requirements communities in the Army can help ensure more 
realistic cost, schedule, and performance expectations?
    Answer. If confirmed, I will work closely with the requirements and 
budget communities to ensure that we are enabling the rapid delivery of 
capability to our warfighters with acceptable risk, and work to 
establish a culture within the acquisition community to team with their 
counterparts in the requirement and budget communities to this end as 
well.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. If confirmed, I will work closely with the requirements and 
budget communities to ensure that we are enabling the rapid delivery of 
capability to our warfighters with acceptable risk, and work to 
establish a culture within that acquisition community to team with 
their counterparts in the requirement and budget communities to this 
end as well.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Army's major acquisition 
programs?
    Answer. I do not have firsthand knowledge regarding the Army's 
experience with spiral development or incremental acquisition process. 
However, in my experience, spiral development adds cost and schedule 
delays in achieving the objective capability. As long as interim 
capability is useful, and time to reach objective capability is not 
fixed, this is an excellent way to reduce performance risk. If 
confirmed, I will seek to apply these tools when appropriate in 
managing the Army's acquisition portfolio.
    Question. What risks do you see in the Army's use of incremental 
acquisition and spiral development?
    Answer. See response above.
    Question. In your view, has the Army's approach to incremental 
acquisition and spiral development been successful? Why or why not?
    Answer. See response above.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. See response above.
    Question. How should the Army ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. See response above.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. I am aware that Configuration Steering Boards have been 
instituted throughout DOD, and I fully support the objectives behind 
their establishment. If confirmed, I will have an opportunity to more 
fully assess whether these forums are achieving the desired results.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. I believe that funding and requirements stability is an 
essential component of successful acquisition programs. If confirmed, I 
would work closely with senior officials within the Army and the Office 
of the Secretary of Defense to improve this aspect of the Department's 
business practices.
                       fixed price-type contracts
    Question. Recent Congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Army should move towards more fixed price-
type contracting in developing or procuring major defense acquisition 
programs? Why or why not?
    Answer. It is my opinion that the Army should use the type of 
contract that is best suited for the acquisition at hand, considering 
primarily complexity and risk, and also any other factors that may be 
relevant to effectively incentivize efficient and economical contractor 
performance. If confirmed, I will ensure that Army acquisition 
strategies reflect sound business judgment in selecting the appropriate 
contract type.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the 
Army?
    Answer. In my view, the most significant impediment to technology 
transition is the alignment in schedule and funding of acquisition 
programs with the availability of the mature technologies. Assessment 
of technological maturity, i.e. the Technology Readiness Level of the 
desired improvement is also a major consideration. Close and continuous 
coordination between technology developers and acquisition programs is 
a key to ensuring successful technology transition.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. If confirmed, I will ensure that acquisition programs 
coordinate with the S&T developers to transition mature technologies as 
appropriate.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from S&T programs and other sources, including small businesses, 
venture capital funded companies, and other nontraditional defense 
contractors, into acquisition programs?
    Answer. It is my understanding that the Army is engaged in a 
variety of initiatives to effectively transition technologies to the 
soldier. If confirmed, I look forward to becoming more familiar with 
the various programs and policies that impact on the Army capability to 
transition capability from the S&T base to acquisition programs.
    Question. Do you believe that the Army's S&T organizations have the 
ability and the resources to carry technologies to higher levels of 
maturity before handing them off to acquisition programs?
    Answer. See response above.
    Question. What steps if any do you believe the Army should take to 
ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. If confirmed, I will work with all stakeholders to ensure 
that the Army S&T effort is resourced to accomplish its mission.
    Question. What role do you believe Technology Readiness Levels and 
Manufacturing Readiness Levels should play in the Army's efforts to 
enhance effective technology transition and reduce cost and risk in 
acquisition programs?
    Answer. Although I have not had the opportunity to fully assess 
this issue, it is my view that Technology Readiness Levels provide a 
standardized metric to identify the maturity of new technologies, or 
existing technologies used in a new or novel fashion. By ensuring that 
new technologies are at adequate maturity levels to warrant continued 
progression through the acquisition process, the Army mitigates the 
risk of having schedule and cost overruns that can result from having 
immature technology matured within an acquisition program. It is my 
understanding that Manufacturing Readiness Levels are an evolving tool, 
and if confirmed I will evaluate their effectiveness in reducing cost 
and risk in acquisition programs.
                          multi-year contracts
    Question. The statement of managers accompanying section 811 of the 
National Defense Authorization Act for Fiscal Year 2008 addresses the 
requirements for buying major defense systems under multi-year 
contracts as follows: ``The conferees agree that `substantial savings' 
under section 2306b(a)(1) of title 10, U.S.C., means savings that 
exceed 10 percent of the total costs of carrying out the program 
through annual contracts, except that multi-year contracts for major 
systems providing savings estimated at less than 10 percent should only 
be considered if the Department presents an exceptionally strong case 
that the proposal meets the other requirements of section 2306b(a), as 
amended. The conferees agree with a GAO finding that any major system 
that is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multi-year 
procurement contract.''
    What are your views on multi-year procurements?
    Answer. I am convinced that multi-year procurements can bring 
useful savings to acquisition programs, stimulate private investment by 
industry, and improve the health of supporting activities, i.e. 
subcontractors, training agencies, sustainers, etc. It is my 
understanding that current Federal acquisition policy addresses how and 
when multi-year procurements should be used. If confirmed, I will work 
to ensure that this procurement approach is applied properly.
    Question. Under what circumstances do you believe they should be 
used?
    Answer. Multi-year contracts should be used when the use of such a 
contract will result in substantial savings over the costs of annual 
contracts, and the contracts will result in increased efficiency, 
through reduced administrative burden and substantial continuity of 
production or performance.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense multi-
year procurement statute, title 10, U.S.C. Sec.  2306b?
    Answer. I have not formed an opinion on the subject at this time; 
however, if confirmed, I will examine the issue and, if warranted, 
offer suggestions for revision.
    Question. If confirmed, under what circumstances, if any, do you 
anticipate that you would support a multi-year contract with expected 
savings of less than 10 percent?
    Answer. I have not yet formed an opinion on this subject. If 
confirmed, I will insure that Army acquisition practices remain 
transparent and support any decision reached regarding savings 
associated with multi-year procurements.
    Question. If confirmed, under what circumstances, if any, would you 
support a multi-year contract for a major system at the end of its 
production line?
    Answer. See response above.
    Question. Under what circumstances, if any, do you believe that a 
multi-year contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multi-year procurement statute, 
title 10 U.S.C. Sec. 2306b?
    Answer. See response above.
    Question. Under what circumstances, if any, should the Army ever 
break a multi-year procurement?
    Answer. See response above.
    continuing competition and organizational conflicts of interest
    Question. The DSB Task Force on Defense Industrial Structure for 
Transformation recommended last summer that ``DOD must increase its use 
of creative competitive acquisition strategies, within limited budgets, 
in order to ensure long-term innovation and cost savings, at both prime 
and critical sub-tier elements. Competition would not be required 
beyond the competitive prototype phase, as long as the current producer 
continuously improves performance and lowers cost - but other 
contractors should always represent a credible option if costs rise or 
performance is unacceptable.'' Section 202 of the Weapon Systems 
Acquisition Reform Act of 2009 requires DOD to take steps to promote 
continuing competition (or the option of such competition) throughout 
the life of major defense acquisition programs.
    Do you agree with the recommendation of the DSB?
    Answer. I am not yet familiar with the details of this DSB study. 
If confirmed, I would carefully consider these recommendations for 
their potential implementation in appropriate circumstances.
    Question. Do you believe that continuing competition is a viable 
option on major defense acquisition programs?
    Answer. In general, I agree with this statement. I understand, 
however, that the availability of technical data is often a limiting 
factor to using competitive contracts for major weapon systems. If 
confirmed, I intend to look in to this area with a view toward 
improving the Army's ability to compete major weapon systems when 
appropriate.
    Question. In your view, has the consolidation of the defense 
industrial base gone too far and undermined competition for defense 
contracts?
    Answer. No, not yet, but it could happen. I believe that the 
interests of the government are always best served by an industrial 
base that is sufficiently broad to support meaningful competition.
    Question. If so, what steps if any can and should the Army take to 
address this issue?
    Answer. I support the need for DOD review, in conjunction with the 
Department of Justice and the Federal Trade Commission, of any mergers 
which would further limit competition. If confirmed, I would ensure 
that Army acquisition managers look beyond their specific programs to 
also assess the impact of consolidation on future programs.
    Question. Section 203 of the Weapon Systems Acquisition Reform Act 
requires the use of competitive prototypes for major defense 
acquisition programs unless the cost of producing such prototypes would 
exceed the lifecycle benefits of improved performance and increased 
technological and design maturity that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. Yes.
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. If confirmed, I will examine this issue to ensure the Army 
optimizes the use of prototyping.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. See response above.
    Question. Section 207 of the Weapon Systems Acquisition Reform Act 
requires the Department to promulgate new regulations to address 
organizational conflicts of interest on major defense acquisition 
programs.
    Do you agree that organizational conflicts of interest can reduce 
the quality and value of technical support services provided to the 
Army and undermine the integrity of the Army's acquisition programs?
    Answer. Yes.
    Question. What steps if any do you believe the Army should take to 
address organizational conflicts of interest in major defense 
acquisition programs?
    Answer. I cannot list any specific steps at this time, however, if 
confirmed, I will work with the Office of the Secretary of Defense to 
determine and implement appropriate policies, procedures, and other 
measures necessary to address this problem.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Army on the 
acquisition of major weapon systems?
    Answer. I support the applicable statutory and regulatory guidance 
that governs the use of such contractor personnel. If confirmed, I will 
work to ensure that Army acquisition programs closely adhere to the 
guidance in this area.
    Question. What lines do you believe the Army should draw between 
those acquisition responsibilities that are inherently governmental and 
those that may be performed by contractors?
    Answer. The Army must continue to ensure that inherently 
governmental functions are performed only by government employees. If 
confirmed, I will work with senior leaders throughout the DOD to 
provide the acquisition workforce with clear guidance concerning 
inherently governmental functions.
    If confirmed, what steps if any would you take to ensure that 
defense contractors do not misuse their access to sensitive and 
proprietary information of the Army and other defense contractors?
    Answer. If confirmed, I will review the issue and determine the 
best method to ensure that defense contract employees are informed 
regarding the potential misuse and safeguarding of sensitive and 
proprietary information of both the Army and other defense contractors.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the government or 
potential competitors in the private sector?
    Answer. If confirmed, I will evaluate the issue and work with my 
staff to develop or reinforce policies that will encourage defense 
contractors to utilize competitive procedures for the award of 
subcontracts so that the government and potential private sector 
competitors are not disadvantaged.
                        lead system integrators
    Question. Section 802 of the National Defense Authorization Act for 
Fiscal Year 2008 prohibits new contracts for lead systems integrator 
(LSI) functions in the acquisition of a major system after October 1, 
2010.
    What is your view of the benefits and risks of using LSI to help 
the Army manage major defense acquisition programs?
    Answer. While I am not yet in position to offer an informed view of 
the benefits and risks associated with using a LSI, I understand that 
there is a general perception of lack of Government control and 
oversight over a program that employs the LSI as the prime contractor.
    Question. Do you believe that the Army currently has the capacity 
to manage its major defense acquisition programs without the assistance 
of lead system integrators?
    Answer. I am not yet in position to provide an informed assessment 
of whether the Army currently has the capacity to manage its major 
defense acquisition programs without a LSI. I believe that the Army's 
acquisition community should be structured organizationally to manage 
its major acquisition programs with or without the utilization of LSIs.
    Question. If not, what steps would you take, if confirmed, to 
ensure that the Army develops the required capability?
    Answer. If confirmed, I would examine the size and the age of the 
acquisition workforce and its impact on the oversight of acquisition 
programs today and into the future. The October 2007 ``Report of the 
Commission on Army Acquisition and Program Management in Expeditionary 
Operations,'' often referred to as the Gansler Commission Report, 
recommended an increase in the stature, quantity, and career 
development of military and civilian contracting personnel and 
recommended additional training and tools for overall contracting 
activities. I understand that the Army is in the process of 
implementing these recommendations.
                      operating and support costs
    Question. Operating and support (O&S) costs far exceed acquisition 
costs for most major weapon systems. Yet, DOD has placed far less 
emphasis on the management of O&S costs than it has on the management 
of acquisition costs.
    Do you believe that the Army has appropriate organizations, 
capabilities, and procedures in place to monitor and manage O&S costs?
    Answer. It has been my experience that O&S costs have not been 
managed as intensely and professionally as acquisition costs. If 
confirmed, I will review this issue to ensure the Army manages O&S 
costs as intensely and professionally as acquisition costs.
    Question. If not, what steps would you take, if confirmed, to 
develop such organizations, capabilities, and procedures?
    Answer. See response above.
                        contracting for services
    Question. Over the past 8 years, DOD's spending on contract 
services has more than doubled, with the estimated number of contractor 
employees working for the Department increasing from an estimated 
730,000 in fiscal year 2000 to an estimated 1,550,000 in fiscal year 
2007. As a result, the Department now spends more for the purchase of 
services than it does for products (including major weapon systems).
    Do you believe that the Army can continue to support this rate of 
growth in its spending on contract services?
    Answer. If confirmed, I will conduct an assessment of the 
acquisition of services to include organization, policy and processes 
to ensure the Army has an effective management structure in place that 
is properly resourced.
    Question. Do you believe that the current balance between 
Government employees (military and civilian) and contractor employees 
is in the best interests of the Army?
    Answer. It is my opinion that a blended workforce of military, 
Government civilians, and contractor employees is necessary. If 
confirmed, I will lead the effort to identify the best mix of resources 
that would be in the best interest of the Army.
    Question. What steps if any would you take, if confirmed, to 
control the Army's spending on contract services?
    Answer. If confirmed, I will lead the effort to conduct strategic 
spend analyses of the Army's service contracts. This will hopefully 
generate useful recommendations to enhance the Army's overall 
management of the service contracting process.
    Question. At the request of the committee, the GAO has compared 
DOD's practices for the management of services contracts to the 
practices of best performers in the private sector. GAO concluded that 
leading companies have achieved significant savings by insisting upon 
greater visibility and management over their services contracts and by 
conducting so-called ``spend'' analyses to find more efficient ways to 
manage their service contractors. Section 801 of the National Defense 
Authorization Act for Fiscal Year 2002 required DOD to move in this 
direction. Sections 807 and 808 of the National Defense Authorization 
Act for Fiscal Year 2008 built on this provision by requiring 
inventories and management reviews of contracts for services.
    Do you believe that the Army has appropriate organizations, 
capabilities, and procedures in place to manage its service contracts?
    Answer. At this time I have no basis to offer a response. If 
confirmed, I will assess the Army's organizations, capabilities, and 
procedures in place to manage its service contracts.
    Question. If not, what steps would you take, if confirmed, to 
develop such organizations, capabilities, and procedures?
    Answer. If confirmed, I will use the results of my analysis to 
determine the optimum organizations, capabilities and procedures for 
the management of service contracts.
    Question. Do you believe that the Army should conduct a 
comprehensive analysis of its spending on contract services, as 
recommended by GAO?
    Answer. See response above.
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. I understand the Army has implemented peer reviews to 
address statutory requirements for independent management reviews of 
contracts for services, and for the sharing of lessons learned gleaned 
from those reviews. If confirmed, I will continue to study and support 
the mechanisms that effectively facilitate the identification of best 
practices and sharing of lessons learned to benefit the Army 
enterprise, including peer reviews.
    Question. If confirmed, will you fully comply with the requirement 
of section 807 of the National Defense Authorization Act for Fiscal 
Year 2008, to develop an inventory of services performed by contractors 
comparable to the inventories of services performed by Federal 
employees that are already prepared pursuant to the Federal Acquisition 
Inventory Reform Act?
    Answer. If confirmed, I will support the Office of the Assistant 
Secretary of the Army for Manpower and Reserve Affairs to ensure 
compliance with section 807 in reporting and maintaining the inventory 
of contractor activities, as well as identifying activities that should 
be considered for conversion to employees of DOD.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Army's management of its contracts for 
services?
    Answer. If confirmed, I will investigate what steps the Army has 
taken thus far in response to recent GAO testimony on Acquisition 
Reform.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by Government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has the Army become too reliant on contractors to 
support the basic functions of the Department?
    Answer. If confirmed, I will assess the Army's reliance on 
contractors to determine the appropriate mix of military personnel, 
civilian employees, and contractors. This assessment will include the 
Army's ongoing effort to increase the acquisition workforce.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Army?
    Answer. If confirmed, I will review this issue to fully understand 
the extent to which personal services contracts are currently used and 
whether their use is appropriate.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by Government employees?
    Answer. In my opinion, appropriate personal conflict of interest 
standards and other ethics requirements should be applied to contractor 
employees when they are performing functions similar to those performed 
by Government employees. It is my understanding that standards and 
requirements are applied to contractor employees in a manner consistent 
with the Federal Acquisition Regulation (and its Defense and Army 
supplements). It is also my understanding that this subject has been 
studied and is being further studied by DOD as to the appropriate way 
to accomplish the goal. If confirmed, I will use the resources of my 
office to ensure that such standards and requirements are applied as 
intended. The Army must always be an honest and transparent steward of 
the taxpayer dollars.
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than any previous U.S. 
military operations. According to widely published reports, the number 
of U.S. contractor employees in Iraq and Afghanistan have exceeded the 
number of U.S. military deployed in those countries.
    Do you believe that the Army has become too dependent on contractor 
support for military operations?
    Answer. In my opinion, contractors provide vital life, safety, and 
health support to both wartime and peacetime military operations. Their 
contributions allow the military personnel to focus more on warfighting 
operations. In the absence of contractor support, the Army would be 
required to significantly increase its strength level in order to 
provide comparable support. That said, we should constantly evaluate 
whether the use of contractors provides the greatest effectiveness and 
efficiency in support of the mission. We should ensure that the Army 
maintains core competencies within its ranks, and does not 
inappropriately contract out inherently governmental functions.
    Question. What risks do you see in the Army's reliance on such 
contractor support?
    Answer. In my opinion, the Army has come to rely on such support as 
an essential element of its ability to conduct operations. This 
situation presents potential operational risks in future situations 
where comparable contract support may be unavailable. It also may 
result in the Government incurring excessive costs for this support.
    Question. What steps do you believe the Army should take to 
mitigate such risk?
    Answer. From what I have read, the number of qualified Contracting 
Officer Representatives has increased allowing for the requisite degree 
of oversight of contractor performance. Additionally, I understand that 
the Office of the Secretary of Defense is fielding a database to better 
track information on contractor personnel and contracts performed in 
Iraq and Afghanistan.
    Question. Do you believe the Army is appropriately organized and 
staffed to effectively manage contractors on the battlefield?
    Answer. I believe the Army's initiatives in increased contracting 
manpower authorizations and training have been a critical first step 
which will lead to more effective utilization of operational contract 
support. However, in my opinion, it will take time to fill the 
increased authorizations with properly trained acquisition 
professionals, and fully train the non-acquisition commanders and 
staffs.
    Question. What steps if any do you believe the Army should take to 
improve its management of contractors on the battlefield?
    Answer. In my opinion, the Army has made significant strides in 
developing new Policy, Doctrine, Organizations, Material solutions and 
Training focused on improving Operational Contract Support. It is my 
opinion that continued Army senior leader emphasis on the full 
implementation of these initiatives is required.
                     government contracting reform
    Question. In a memorandum to the heads of all Federal agencies, the 
President on March 4, 2009, directed a Government-wide review of 
contracting procedures, stating that ``executive agencies shall not 
engage in noncompetitive contracts, except in those circumstances where 
their use can be fully justified and where appropriate safeguards have 
been put in place to protect the taxpayer.''
    If confirmed, what role would you play in determining whether the 
use of noncompetitive contracts could be fully justified?
    Answer. I fully support the President's direction in this important 
area. It is my understanding that, subject to direction by the 
Secretary of the Army, the ASA(ALT) serves as the Army's senior 
procurement executive. If confirmed, in that capacity I would be 
responsible for reviewing and approving all noncompetitive contracts 
over $78.5 million, as well as for the promulgation of Army-specific 
policy relating to competition.
    Question. In your opinion, how would the direction in this memo 
affect the use of single-award and multiple-award Indefinite Delivery/
Indefinite Quantity contracts?
    Answer. In principle, I believe that either contract vehicle may be 
used consistent with the need for competition. It is essential, 
however, that competition be fully considered during the acquisition 
planning process to ensure selection of the most appropriate contract 
type. If confirmed, I would carefully assess this issue in conjunction 
with the Director of Defense Procurement and Acquisition Policy.
                          contracting methods
    Question. The Office of Federal Procurement Policy and DOD have 
long agreed that Federal agencies could achieve significant savings and 
improved performance by moving to performance-based services 
contracting (PBSC). Most recently, the Army Environmental Program 
informed the committee that it has achieved average savings of 27 
percent over a period of several years as a result of moving to fixed-
price, performance-based contracts for environmental remediation. 
Section 802 of the National Defense Authorization Act for Fiscal Year 
2002, as amended, established performance goals for increasing the use 
of PBSC in DOD service contracts.
    What is the status of the Army's efforts to increase the use of 
PBSC in its service contracts?
    Answer. I understand that the Army is making strides in using PBSC 
and if confirmed, this is an area that I intend to study.
    Question. What additional steps if any do you believe the Army 
needs to take to increase the use of PBSC and meet the goals 
established in section 802?
    Answer. See response above.
    Question. In recent years, DOD has relied heavily on time-and-
materials contracts for the acquisition of services. Under such a 
contract, the Department pays a set rate per hour for contractor 
services, rather than paying for specific tasks to be performed. In 
some cases, contractors have substituted less expensive labor under 
time-and-materials contracts, while continuing to charge Federal 
agencies the same hourly rates, resulting in effective contractor 
profits of 25 percent or more.
    What is your view of the appropriate use of time-and-materials 
contracts by the Army?
    Answer. I understand that time-and-material contracts are the least 
preferred contract type. They may be appropriate in limited 
circumstances such as when the requirement cannot be defined and work 
must start. Once the requirement becomes better defined, however, time-
and-materials contracts should be replaced with fixed-price or cost 
type contracts.
    Question. What steps if any do you believe the Army should take to 
minimize the abuse of time-and-materials contracts?
    Answer. If confirmed, I will work to ensure that the Army reviews 
its contract portfolio on a regular basis to identify those that can be 
converted to other more appropriate contract vehicles.
    Question. Section 852 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 requires DOD to promulgate 
regulations prohibiting excessive ``pass-through'' charges on DOD 
contracts. Pass-through charges are charges added by a contractor for 
overhead and profit on work performed by one of its subcontractors, to 
which the contractor provided no added value. In some cases, pass-
through charges have more than doubled the cost of services provided to 
DOD.
    What is your view of the regulations promulgated by DOD to 
implement the requirements of section 852?
    Answer. If confirmed, I intend to review regulations promulgated to 
implement section 852.
    Question. What additional steps if any do you believe the Army 
should take to address the problem of excessive pass-through charges?
    Answer. I am not familiar with the degree to which excessive pass-
through charges are a problem in Army contracting. If confirmed, I will 
review this matter to determine what additional steps, if any, may be 
necessary.
                        interagency contracting
    Question. GAO recently placed interagency contracting--the use by 
one agency of contracts awarded by other agencies--on its list of high-
risk programs and operations. While interagency contracts provide a 
much-needed simplified method for procuring commonly used goods and 
services, GAO has found that the dramatic growth of interagency 
contracts, the failure to clearly allocate responsibility between 
agencies, and the incentives created by fee-for-services arrangements, 
have combined to expose DOD and other Federal agencies to the risk of 
significant abuse and mismanagement.
    If confirmed, what steps if any will you take to monitor and 
evaluate the effectiveness of the actions currently underway or planned 
regarding Army's use of other agencies' contracts?
    Answer. If confirmed, I will ensure that the Army's acquisition 
workforce implements these policies and procedures by making 
interagency contracting an item of special interest in Army program 
management reviews.
    Question. Do you believe additional authority or measures are 
needed to hold Army or other agency personnel accountable for their use 
of interagency contracts?
    Answer. I understand that recent guidance was issued by the 
Government to provide for adequate measures of accountability. If 
confirmed, I will ensure that the Army implements these policies and 
procedures.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by Army personnel is within the scope 
of their contract?
    Answer. Yes, in my view contractors have a responsibility to ensure 
the work they perform is within the scope of their contract. A contract 
is a bilateral document and both parties have responsibilities. If 
confirmed, I will ensure that the Army acquisition workforce reinforces 
this concept.
    Question. Do you believe that the Army's continued heavy reliance 
on outside agencies to award and manage contracts on its behalf is a 
sign that the Army has failed to adequately staff its own acquisition 
system?
    Answer. While I would not characterize it as a failure to 
adequately staff the Army's acquisition system, the Army's compliance 
with downsizing directives has possibly resulted in an over reliance on 
outside agencies to award contracts.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. If confirmed, I will review whether different strategies 
are appropriate for MAIS acquisitions.
    Question. What steps if any do you believe the Army should take to 
address these problems?
    Answer. See response above.
    Question. If confirmed, how would you work with the Chief 
Information Officer of the Army to take these steps?
    Answer. If confirmed, I intend to work closely with the Army Chief 
Information Officer in all matters under his purview.
    Question. Problems with computer software have caused significant 
delays and cost overruns in a number of major defense programs. Section 
804 of the National Defense Authorization Act for Fiscal Year 2003 
required DOD to establish a program to improve the software acquisition 
process.
    What steps if any would you take, if confirmed, to address delays 
and cost overruns associated with problems in the development of 
software for major weapon systems?
    Answer. I have not been briefed on the Army's delays and cost 
overruns associated with problems in the development of software for 
major weapon systems. If confirmed, I will make the study of this 
matter a priority.
    Question. Section 804 of the National Defense Authorization Act for 
Fiscal Year 2010 would require the Secretary of Defense to establish a 
new acquisition process for information technology programs.
    Do you believe that the acquisition of information technology 
systems is sufficiently different from the acquisition of other systems 
to justify the development of a unique acquisition process?
    Answer. Not at this time, but if confirmed, this is a matter that I 
will review and assess in greater depth.
    Question. If so, what do you see as the unique features that would 
be desirable for an information system acquisition process?
    Answer. See response above.
    Question. What types of information technology programs do you 
believe should be covered by the new process?
    Answer. I am not in a position at this time to make recommendations 
in this area. However, if confirmed, I will review the acquisition 
process for the Department's IT programs.
                         acquisition workforce
    Question. Over the last 15 years, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Since September 11, 2001, moreover, the demands placed on 
that workforce have substantially increased. While DOD has started the 
process of planning its long-term workforce needs, the Department does 
not yet have a comprehensive strategic workforce plan needed to guide 
its efforts.
    Do you believe that Army's workforce is large enough and has the 
skills needed to perform the tasks assigned to it?
    Answer. I understand the Secretary of Defense announced on April 6, 
2009, an initiative to grow the capacity and capability of the defense 
acquisition workforce by 20,000 new personnel by fiscal year 2015, and 
that the Army is in the process of implementing this initiative. If 
confirmed, I will assess the composition the Army's acquisition 
workforce in all discipline areas to determine if there are any 
shortages or gaps in necessary skills.
    Question. In your view, what are the critical skills, capabilities, 
and tools that the Army's workforce needs for the future? What steps 
will you take, if confirmed, to ensure that the workforce will, in 
fact, possess them?
    Answer. At this time, I am not sufficiently informed as to which 
critical skills sets, capabilities and tools are needed by the Army's 
workforce. If confirmed, I will evaluate the state of the current 
acquisition workforce in light of existing and future program needs. 
Generally speaking, I believe there is a need for talent in system 
engineering, and the S&T discipline. I have read also that the Army has 
taken steps to build the size and skill level of its contracting 
workforce, and if confirmed, I will assess the health of this community 
to determine if additional emphasis is needed.
    Question. Do you agree that the Army needs a comprehensive human 
capital plan, including a gap analysis and specific recruiting, 
retention and training goals, to guide the development of its 
acquisition workforce?
    Answer. I agree that a comprehensive human capital plan would be 
useful in evaluating current workforce capabilities and determining 
future needs and gaps. An Army acquisition human capital plan should be 
aligned with an overarching Army plan and also be consistent with a DOD 
human capital plan, specifically as it relates to the acquisition 
community.
    Question. What steps if any do you think are necessary to ensure 
that the Army has the ability it needs to attract and retain qualified 
employees to the acquisition workforce?
    Answer. I believe it is essential that the Army has effective 
recruiting and retention tools. At this time I cannot suggest specific 
steps that should be undertaken, but if confirmed, I would assess this 
area to determine whether changes in regulation or policy may be 
needed.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, prime contractors for this expertise?
    Answer. It is well known that since the end of the Cold War, the 
Army has seen a significant reduction in the size of its Government/
acquisition workforce. This situation has resulted in a tremendous loss 
of managerial and technical expertise. Concurrently, workload has 
increased substantially, which has resulted in a growing reliance on 
support contractors. If confirmed, I will further study this area and 
work to appropriately rebalance the acquisition workforce.
    Question. What is the appropriate tenure for program managers and 
program executive officers to ensure continuity in major programs?
    Answer. I understand that tenure requirements for program managers 
are based on the Acquisition Category level of the Program and range 
from 3 to 4 years. I also understand that the Army and/or Defense 
Acquisition Executive have the authority to adjust the tenure 
requirement based on unique aspects of the program. I believe this 
policy represents the appropriate balance between program continuity 
and the professional development of the workforce.
    Question. Section 852 of the National Defense Authorization Act for 
Fiscal Year 2008 established an Acquisition Workforce Development Fund 
to help DOD address shortcomings in its acquisition workforce. The fund 
would provide a minimum of $3 billion over 6 years for this purpose.
    Do you believe that the Acquisition Workforce Development Fund is 
needed to ensure that the Army has the right number of employees with 
the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes, I believe the Defense Acquisition Workforce 
Development Fund is essential to carry out Secretary of Defense's 
guidance to grow the capacity and capability of the defense acquisition 
workforce. Providing the emphasis and resources to support the 
recruiting and hiring, training and development, and retention of this 
workforce is crucial.
    Question. If confirmed, what steps if any will you ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of the Army and its acquisition 
workforce?
    Answer. If confirmed, I will ensure decisions on use of the Fund 
are supported by appropriate analysis, and that the Army has meaningful 
metrics in place to ensure the Fund is executed in a manner consistent 
with its statutory purpose.
   procurement fraud, integrity, and contractor responsibility issues
    Question. Recent acquisition scandals have raised concerns about 
the adequacy of existing mechanisms to uphold procurement integrity and 
prevent contract fraud.
    What is your view of the adequacy of the tools and authorities 
available to the Army to ensure that its contractors are responsible 
and have a satisfactory record of integrity and business ethics?
    Answer. A number of tools and authorities have been developed over 
the years to ensure contractors are responsible and have a satisfactory 
record of integrity and business ethics. If confirmed, I will become 
familiar with current authorities and ensure that the Army does 
business with contractors that have a satisfactory record of integrity 
and business ethics.
    Question. In your view, are current ``revolving door'' statutes 
effective?
    Answer. In my opinion, they are effective, but require continued 
monitoring and oversight.
    Question. What tools other than law enforcement measures could be 
used to help prevent procurement fraud and ethical misconduct?
    Answer. In my opinion, aggressive oversight of contractor and 
government performance is critical to minimizing procurement fraud and 
ethical misconduct.
    Question. Are there sufficient enforcement mechanisms to ensure 
compliance with laws and regulations?
    Answer. Yes, I believe that there are sufficient enforcement 
mechanisms to ensure compliance with laws and regulations.
            ``buy america'' and the defense industrial base
    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years. As a result, there have been 
a number of legislative efforts to place restrictions on the purchase 
of defense products from foreign sources.
    What benefits do you believe the Army obtains from international 
participation in the defense industrial base?
    Answer. Based on my experience, foreign firms often bring 
innovation and cost control. I also recognize that the United States is 
a major exporter of defense equipment and that reciprocal trade 
arrangements have been beneficial to U.S. defense contractors. If 
confirmed, I will look for opportunities to avail ourselves of needed 
defense technologies from all sources.
    Question. Under what conditions, if any, would you support the 
imposition of domestic source restrictions for a particular product?
    Answer. If confirmed, I will comply with all applicable laws and 
departmental policy prohibiting foreign purchases.
    Question. What is your opinion of ``Buy America'' legislation and 
the ``Berry Amendment''?
    Answer. See response above.
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. The U.S. defense industry has been generally stable over 
the last decade largely because of defense spending levels.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. The interests of the Army are usually best served by 
maintaining competitive markets for required products and services. I 
will support DOD in reviewing, in conjunction with the Department of 
Justice and the Federal Trade Commission, proposed mergers which may 
impact DOD's competition objectives.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. I believe it is important for DOD to carefully review 
foreign investments in U.S. firms providing defense technology in order 
to minimize risk to national security.
    Question. What steps if any do you believe the Army should take to 
ensure the continued health of the U.S. defense industry?
    Answer. If confirmed, I will ensure that the Army continually 
assesses the condition of the U.S. industrial base and take appropriate 
steps to ensure its viability.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade. Since the mid-1990's, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System 
(FCS) and Modularity. Instability in funding, either as provided by DOD 
or Congress, has been cited by the Army and others as a principal cause 
of program instability. For the most part, however, the Army has 
benefited from broad DOD and Congressional support for its 
modernization and readiness programs even when problems with the 
technical progress and quality of management of those programs have 
been apparent--the Armed Reconnaissance Helicopter is a recent example.
    What is your assessment of the Army's modernization record?
    Answer. The Army's modernization record clearly depicts the 
complexities of an Army in transition during a time of war. I believe 
that the Army must continue to adapt to a rapidly changing threat 
environment. If confirmed, I look forward to working with the Secretary 
of Defense and Congress to equip and modernize the force.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. Stable, predictable Total Obligation Authority allows the 
Army to balance its needs, chart a course, and stick to it. If 
confirmed, I would work with the Secretary of the Army, Secretary of 
Defense, and Congress to arrive at that stable funding level, and 
subsequently, a stable modernization program.
    Question. What is your understanding and assessment of the Army's 
modernization investment strategy?
    Answer. I understand that the Army's Modernization Investment 
Strategy is built on assessing the likelihood of evolving threats and 
planning future capabilities to mitigate that threat. It is an 
imprecise science, and requires almost constant review and correction, 
and must balance investments in future development with improvements to 
today's equipment. If confirmed, I plan a thorough review of these 
investments.
    Question. In your view does the Army's modernization investment 
strategy appropriately or adequately address current and future 
capabilities that meet requirements for unconventional or irregular 
conflict?
    Answer. My preliminary assessment is that the Army is making 
appropriate investments to counter unconventional and irregular 
threats. The key for me, if confirmed, will be to ensure the Army 
successfully balances current and future initiatives.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue in this regard?
    Answer. I do not have sufficient knowledge to make an accurate 
assessment at this time. If confirmed, I intend to conduct a full 
review of the Army's investment initiatives.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. I believe one of the strengths of the Defense Program is to 
specifically address affordability and the out-year projection of long-
term funding requirements. Those processes have been strengthened by 
initiatives within OSD and by Congress. If confirmed, I believe I would 
have the required visibility and management structure that would allow 
me to provide these judgments to Congress.
    Question. In your view, what trade-offs would most likely have to 
be taken should budgets fall below or costs grow above what is planned 
to fund the Army's modernization efforts?
    Answer. While I do not have sufficient insight into what actions 
might be required, any trade-offs must occur after all areas of risk 
are carefully considered in coordination with the Secretary of Defense 
and Congress.
                      army weapon system programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Early Infantry Brigade Combat Team Modernization
    Answer. While I am not yet in a position to provide an informed 
assessment of the Early Infantry Brigade Combat Team modernization 
program, I understand that the Army's goal is to improve the 
situational awareness, survivability, and lethality of the soldiers who 
travel into harm's way through a comprehensive and dedicated process of 
incremental improvements. It is my understanding that the Early 
Infantry Brigade Combat Team Modernization program takes the best 
equipment available that was developed under the former future combat 
systems program and inserts them into the units that need them the 
most, the Infantry Brigades.
    Ground Combat Vehicle
    Answer. I am not yet in a position to provide an informed 
assessment of the Ground Combat Vehicle program. I have been advised, 
however, that the Ground Combat Vehicle is likely to be a new design 
that uses the best assets of the current combat vehicles as well as 
proven technology from the cancelled Manned Ground Vehicles program.
    Stryker Combat Vehicle, including the Stryker Mobile Gun Variant
    Answer. I am not yet in a position to offer an informed assessment 
of the Stryker program; however, I understand that Stryker variants 
have been in production since 2004 and that this system has been used 
successfully in Iraq and is preparing to deploy to Afghanistan.
    Joint Light Tactical Vehicle (JTLV)
    Answer. While I am not yet in a position to provide an informed 
assessment of JLTV, I understand that it is a relatively new joint 
Service developmental program which consists of a family of vehicles 
with companion trailers, capable of performing multiple mission roles.
    Armed Aerial Scout (AAS) Helicopter
    Answer. I understand that the AAS program is needed to meet 
existing capability gaps in the area of manned armed aerial 
reconnaissance. I have been informed that the Army is currently 
studying alternatives to meet the gaps, and if confirmed, I will 
undertake a thorough review of this program.
    M1 Abrams Tank Modernization
    Answer. The Abrams Tank has been an integral part of the Army's 
force structure for decades and requires modernization. I am not yet in 
a position to provide an informed assessment of this effort. If 
confirmed, I will become more familiar with this program.
    M2 Bradley Infantry Fighting Vehicle Modernization
    Answer. The Bradley also has been an integral part of the Army's 
force structure for decades and requires modernization. I am not yet in 
a position to provide an informed assessment of this effort. If 
confirmed, I will become more familiar with this program.
    Warfighter Information Network-Tactical (WIN-T)
    Answer. I am not able to provide an informed assessment of the WIN-
T program. I understand that WIN-T is the Army's network modernization 
program that is absolutely essential to the Army. It delivers the high 
speed secure voice, video, and data, while allowing for full mobility 
of the network. If confirmed, I will become more familiar with this 
program.
    Logistics Modernization Program (LMP)
    Answer. I am not able to provide an informed assessment on LMP at 
this time. I understand this Program is the ongoing effort to modernize 
the primary business systems of the Army Materiel Command (AMC) 
Commodity Commands. If confirmed, I will become more familiar with this 
program.
    Joint Tactical Radio System (JTRS)
    Answer. I understand that JTRS is a DOD initiative to develop a 
family of software-programmable tactical radios that provide mobile, 
interoperable, and networked voice, data and video communications. At 
this time, however, I am not able to provide an assessment of the JTRS 
program. If confirmed, I will become more familiar with this program.
    UH-58D Kiowa Warrior Safety and Life Extension Program
    Answer. It is my understanding that the Kiowa Warrior life 
extension program is a necessary upgrade to improve aircraft 
performance safety and reliability. At this time, however, I am not 
able to provide an assessment of the Kiowa Warrior life extension 
program. If confirmed, I will become more familiar with this program.
                mine resistant ambush protected vehicles
    Question. If confirmed, what would you propose should be the Army's 
long-term strategy for the utilization and sustainment of its large 
Mine Resistant Ambush Protected (MRAP) vehicle fleet?
    Answer. I understand that the MRAP vehicles were procured in 
response to a Joint Urgent Operational Need Statement from Multi-
National Corps-Iraq in June 2006. While I am not yet in position to 
provide an informed assessment of MRAPs, if confirmed, I would work to 
determine the appropriate long-term strategy for the utilization and 
sustainment of the Army's fleet of MRAPs.
    residual future combat systems lead systems integrator contract
    Question. The FCS program has now devolved into three elements: a 
new ground combat vehicle (GCV) program, a plan to continue small 
technology spin outs to infantry brigades in increments, and a residual 
effort to develop software based on the system-of-systems common 
operating environment system. Plans for restructuring the spin outs for 
an early fielding to select infantry brigades appear to be close to 
completion. However, most of the base contract for what used to be FCS 
remains in place, including the Lead System Integrator (LSI) fee 
structure, with only the manned ground vehicle portions terminated.
    What is your understanding and assessment of the former and 
restructured elements of the now terminated FCS program?
    Answer. While I am not yet in a position to provide an informed 
assessment of the former and restructured elements of the terminated 
FCS program, I understand that the Army terminated its LSI relationship 
with The Boeing Company. Boeing now serves as a traditional prime 
contractor under the revised contract for Engineering, Manufacturing, 
and Development (EMD).
    Question. What is your understanding and assessment of the FCS 
program's residual LSI management concept and contract?
    Answer. I understand that under the revised contract for EMD, 
Boeing is performing the functions of a prime contractor and conducts 
the normal systems engineering and integration work that is required 
for any developmental program. If confirmed, I would examine the FCS 
program's residual LSI management concept and contract in order to 
provide an informed assessment.
    Question. In your view, what should be the current and future role 
of the LSI and, if confirmed, what modifications, if any, would you 
propose to the LSI contract and fee structure; on what timeline?
    Answer. It is my understanding that the Army has terminated its LSI 
relationship with The Boeing Company. If confirmed, I will review this 
matter and make recommendations as appropriate.
            management of the ground combat vehicle program
    Question. As of December 2009, Program Executive Office-
Integration, the former Program Executive Office responsible for 
oversight and management of the terminated FCS program, will oversee 
and manage the new GCV program. This is despite the fact that Program 
Executive Office-Ground Combat Systems has the depth of expertise and 
experience necessary to successfully oversee and manage the development 
of tracked combat vehicles for the Army.
    What is your understanding and assessment of this management 
structure for the Army's next generation GCV?
    Answer. I am not yet in a position to provide an informed 
assessment of the management structure for the Army's next generation 
GCV. I have been advised, however, that the current management 
structure under Program Executive Office-Integration for development of 
the Ground Combat Vehicle leverages the last 8 years of Manned Ground 
Vehicles development.
    Question. If confirmed, what current or future modifications, if 
any, would you propose making to the oversight and management structure 
of the GCV program?
    Answer. If confirmed, I will become more familiar with this program 
and make modifications as required.
                               modularity
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. The new modular brigade combat team is supposed to have an 
increased capability to operate independently based upon increased and 
embedded combat support capabilities such as military intelligence, 
reconnaissance, and logistics. Although somewhat smaller in size, the 
new modular brigades are supposed to be just as or more capable than 
the divisional brigades they replace because they will have a more 
capable mix of equipment--such as advanced communications and 
surveillance equipment. To date, the Army has established over 80 
percent of its planned modular units, however, estimates on how long it 
will take to fully equip this force as required by its design has 
slipped from 2011 to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. It is my understanding that the Army's modular 
transformation was designed to create a more expeditionary capable 
force that will address the full-spectrum of missions emerging from a 
post-Cold War strategy. I have been advised that the Army continuously 
addresses changes to its unit designs by incorporating lessons learned 
and changes in technology that keep the formations relevant and 
effective. If confirmed, I look forward to making an assessment of the 
strategy.
    Question. In your view, what are the greatest equipment and 
sustainment challenges in realizing the transformation of the Army to 
the modular design?
    Answer. I have been advised that the Army faces two major 
challenges with regard to transformation--restoring balance to a force 
experiencing the cumulative effects of 8 years of war and setting 
conditions for the future to fulfill the Army's strategic role as an 
integral part of the Joint Force. The Army must sustain equipment in 
the current fight while modernizing future capabilities.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy and 
plans for equipping and sustaining the force?
    Answer. I am not yet in a position to provide an informed 
assessment on the Army's modular transformation strategy and plans for 
equipping and sustaining the force. If confirmed, I would closely 
examine the transformation strategy to ensure a focus on resources that 
sustain the current fight while making critical investments to Army 
modernization.
                          manufacturing issues
    Question. The recent DSB study on the Manufacturing Technology 
Program made a number of findings and recommendations related to the 
role of manufacturing research and capabilities in the development and 
acquisition of defense systems.
    Have you reviewed the findings of the DSB Task Force on the 
Manufacturing Technology Program?
    Answer. I have not yet reviewed the findings of the DSB Task Force 
on the Manufacturing Technology Program.
    Question. What recommendations, if any, from the Task Force would 
you plan to implement if confirmed?
    Answer. If confirmed, I will review the Army's current funding and 
implementation strategy and look for opportunities to increase 
effectiveness and efficiency.
    Question. What incentives do you plan to use to enhance industry's 
incorporation and utilization of advanced manufacturing processes 
developed under the manufacturing technology program?
    Answer. The Army invests in manufacturing technology areas that 
promise to provide the most military capability or cost reduction to 
end items in production. The Army's industry partners benefit from this 
investment by their increased competitive advantage.
                         science and technology
    Question. What, in your view, is the role and value of S&T programs 
in meeting the Army's transformation goals and in confronting 
irregular, catastrophic, traditional and disruptive threats?
    Answer. It is my understanding that the Army's S&T investment 
strategy is shaped to foster innovation and accelerate/mature 
technology to enable Future Force capabilities while exploiting 
opportunities to rapidly transition technology to the Current Force. It 
is my view that the S&T program should retain the flexibility to be 
responsive to unforeseen needs identified through current operations.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Army's long-term research 
efforts?
    Answer. I believe that it is important to maintain a balanced and 
responsive S&T portfolio. If confirmed, I will review S&T investment, 
objectives, and metrics and determine an appropriate future strategy.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Army is making adequate investments in its basic 
research programs?
    Answer. It is my understanding the Army currently has a number of 
periodic reviews of its in-house and extramural basic research 
programs. If confirmed, I intend to carefully evaluate these reviews to 
derive appropriate metrics for the Army's basic research investments.
    Question. Do you feel that there is sufficient coordination between 
and among the S&T programs of the military services and defense 
agencies?
    Answer. Coordination between these S&T programs is vitally 
important. If confirmed, I will assess the coordination process.
    Question. What is the Department's role and responsibility in 
addressing national issues related to science, technology, engineering, 
and mathematics education and workforce development?
    Answer. I believe the Army, which is significantly dependent on S&T 
to fulfill its national defense mission, has effective policies and 
programs in place to help maintain the technical edge our Nation needs 
to ensure its security and to be globally competitive. It is important 
to recognize that the Army not only needs to attain and retain the 
talent today, but also needs to develop a talented future workforce to 
maintain the technical edge. If confirmed, I plan to continue and 
strengthen, where necessary, Army educational outreach programs and 
initiatives.
    Question. What steps if any would you take to support efforts to 
ensure that the Nation has the scientific and technical workforce 
needed for its national security technological and industrial base?
    Answer. If confirmed, I will take advantage of the current 
legislative authorities and encourage full participation and engagement 
throughout the Army's laboratory complex to build the Nation's 
scientist, mathematician, engineering and technician talent pool, 
including reaching underrepresented populations, and recruiting and 
retaining the highest quality workforce.
    Question. How would you use S&T programs to better reduce technical 
risk and therefore potentially reduce costs and schedule problems that 
accrue in large acquisition programs?
    Answer. In my view, it is very important to mature technologies 
within the research and development program. Research and development 
should be used to reduce program risk, by showing that component 
technologies can be integrated into systems and perform as required in 
a relevant environment. Making the investment to mature technologies in 
research and development can reduce the risk of costly overruns in the 
product development phase.
    Question. Do you feel that the S&T programs of the Army are too 
near-term focus and have over emphasized technology transition efforts 
over investing in revolutionary and innovative research programs?
    Answer. If confirmed, I will assess this balance, solicit guidance 
regarding levels of acceptable risk, and rebalance S&T investments 
accordingly.
    Question. Are you satisfied that the Army has a well articulated 
and actionable S&T strategic plan?
    Answer. If confirmed, I will assess the Army plan and determine if 
it provides an appropriate path for the evolution of Army S&T.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure and ethics 
requirements, to ensure that the Army can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. If confirmed, workforce quality will be one of my highest 
priorities. There are tools in place, including direct hire authority 
and flexible personnel system to grow and maintain a high quality 
workforce. I look forward to working with Congress on maintaining and 
enhancing these authorities as appropriate.
                          defense laboratories
    Question. What is your view on the quality of the Army laboratories 
as compared to the DOE national laboratories, Federal laboratories, 
academic laboratories, and other peer institutions?
    Answer. In my view, the quality of the Army laboratories compares 
favorably to other laboratories and institutions. If confirmed, I will 
undertake a review of Army laboratory capability with a view toward 
enhancing their capability.
    Question. What metrics will you use, if confirmed, to evaluate the 
effectiveness, competitiveness, and scientific vitality of the Army 
laboratories?
    Answer. If confirmed, I will work closely with my staff to identify 
and develop appropriate metrics to evaluate laboratory effectiveness. 
It is my understanding that the Army currently conducts peer reviews 
annually to assess the vitality of the laboratories.
    Question. What steps if any will you take, if confirmed, to 
increase the mission effectiveness and productivity of the Army 
laboratories?
    Answer. If confirmed, I will work to ensure that the Army 
laboratories have the best possible workforce, facilities, and 
processes to meet the technology needs of the Army. I intend to closely 
monitor the effectiveness of the laboratories and implement 
improvements as necessary.
    Question. Do you see value in enhancing the level of technical 
collaboration between the Army laboratories and academic, other Federal 
and industrial scientific organizations?
    Answer. I believe there is value in technical collaboration and it 
is my understanding a strong collaboration between Army, industry and 
universities already exists. The Army's S&T program is shaped 
collaboratively through close partnerships with warfighters, S&T 
developers across DOD, other Federal agencies, industry, academia, and 
international partners. If confirmed, I would work to ensure that the 
Army continues to collaborate when appropriate.
    Question. Do you feel that past investments in research equipment; 
sustainment, repair and modernization; and facility construction at the 
Army laboratories have been sufficient to maintain their mission 
effectiveness and their standing as world class science and engineering 
institutions?
    Answer. I am not sufficiently informed to determine if past 
investments have been adequate to support the Army's research 
facilities; however, maintaining appropriate levels of funding in this 
area for the future will be critical. Recent legislative authorities 
provided by Congress will be helpful in maintaining mission 
effectiveness and standing of Army research facilities.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Army's acquisition programs?
    Answer. I believe it is appropriate to have an independent 
operational test and evaluation authority separate from the materiel 
developer to plan and conduct operational tests, report results, and 
provide evaluations on operational effectiveness, operational 
suitability, and survivability.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. If confirmed, I will examine the amount of reliance the 
Army has on system contractors performing developmental testing to 
confirm none are performing inherently governmental functions. It is my 
understanding that system evaluations are generally performed by Army 
organizations.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process?
    Answer. I understand that the Army test and evaluation community 
has adjusted processes as necessary and has worked diligently ensuring 
systems fielded to soldiers are safe, effective, and reliable. If 
confirmed, this is an area that I would further study to determine 
whether any enhancements are appropriate.
    Question. If confirmed, how will you work to ensure that all 
equipment and technology that is deployed to warfighters is subject to 
appropriate operational testing?
    Answer. If confirmed, I will provide policy and oversight in this 
area, as well as continue the effective working relationship that the 
Army acquisition community has with the Army and DOD test community.
    Question. Do you believe that the developmental testing 
organizations in the Army are adequate to ensure an appropriate level 
of developmental testing, and testing oversight, on major defense 
acquisition programs?
    Answer. I am not fully informed at this time to make an appropriate 
assessment of this matter. If confirmed, I will review this area and 
work closely with the Army and DOD test community to optimize this 
capability.
    Question. If not, what steps would you take, if confirmed, to 
address any inadequacies in such organizations?
    Answer. If confirmed, I will monitor the status of these 
organizations to ensure that they remain capable of accomplishing their 
mission.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate them becomes 
more difficult. Some systems-of-systems cannot be tested as a whole 
until they are already bought and fielded.
    Are you concerned with Army's ability to test these new types of 
systems?
    Answer. I am aware that testing of system-of-systems requires 
consideration of live, virtual, and constructive test capabilities. I 
understand that system-of-systems testing is challenging; if confirmed, 
I will work to continue to ensure that system capabilities and 
limitations are clearly established before testing of these systems.
    Question. What steps, if any, do you believe the Army should take 
to improve its test and evaluation facilities to ensure adequate 
testing of such systems?
    Answer. If confirmed, I will provide support to the Army test and 
evaluation community and support efforts to ensure that they are 
properly resourced.
               small business innovation research program
    Question. What do you see as the major successes and challenges 
facing the Army Small Business Innovation Research (SBIR) program?
    Answer. I understand that the Army has a successful SBIR program 
that has transitioned technology to the soldier. If confirmed, I will 
make every effort to ensure that the SBIR program reaches out to 
innovative small businesses that have not traditionally dealt with the 
military.
    Question. What steps would you take if confirmed to ensure that the 
Army has access to and invests in the most innovative small businesses?
    Answer. A cornerstone of the SBIR program is the identification of 
innovative approaches to Army requirements. If confirmed, I will 
continue to effectively communicate Army needs to the thousands of 
innovative small businesses through an aggressive outreach program to 
the small business community as well as continuing to develop high 
impact SBIR topics that can provide innovative solutions to soldier 
needs. Close coordination among the SBIR program, small businesses and 
the Acquisition community ensures that these innovative solutions will 
be available to the soldier.
    Question. What steps would you take if confirmed to ensure that 
successful SBIR research and development projects transition into 
production?
    Answer. If confirmed, I will take all steps available to maximize 
the opportunity for the successful transition of SBIR technology into 
production.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASA(ALT)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Kay Hagan
                          army research office
    1. Senator Hagan. Dr. O'Neill, North Carolina hosts the Army 
Research Office, which reports to the Army Research Lab within Army 
Materiel Command. I believe their location in Durham is of great 
benefit to the Army due to the cluster of high-end industry and 
university research being conducted in the Research Triangle. In 2009, 
North Carolina published a Defense Asset Inventory and Target Industry 
Cluster Analysis that identified the State's industry, academic, and 
research and development (R&D) capacity to support key functional 
technological areas to include: fuel and power; unmanned systems; human 
factors; performance materials; command control, communications, 
computers, intelligence, surveillance, and reconnaissance; and reset. 
If confirmed, please highlight where the Army Research Office's work 
can connect to your focus areas within the Army Secretariat of 
Acquisition, Logistics, and Technology?
    Dr. O'Neill. The Army Research Office is the primary conduit 
through which basic research activities that are of interest to the 
Army, and performed at academic institutions, are funded and managed. 
These research efforts are fundamental to providing scientific and 
technical solutions for the warfighter across the entire spectrum of 
Army operations. The Army Research Office benefits from its proximity 
to leading universities from its headquarters in Research Triangle 
Park. If confirmed, I would ensure that the Army continues to take 
advantage of the technical expertise and industrial base found in North 
Carolina, and across the country in order to achieve its modernization 
objectives.

    2. Senator Hagan. Dr. O'Neill, can you comment on how you can 
ensure the Army's overall R&D efforts, to include, the Army Research 
Office, are coordinated and resources leveraged?
    Dr. O'Neill. I believe that it is important to maintain a balanced 
and responsive science and technology (S&T) portfolio in order to 
develop, accelerate and mature technologies. The Army Science and 
Technology Master Plan is the Army's strategic plan for the S&T 
enterprise and helps ensure research is well coordinated and leveraged 
across the Army research and development complex. The Army also 
coordinates with the S&T programs of the other Military Services and 
defense agencies through the Defense S&T Reliance 21 Program. Finally, 
the Army works closely with its partners in academia and industry to 
ensure we are leveraging the full capabilities of the country in 
supporting the warfighter. If confirmed, I would ensure that these 
well-established and effective processes continue.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                        contracting in the army
    3. Senator Burris. Dr. O'Neill, in your advance policy responses, 
you stated that the ``Army should use the type of contract that is best 
suited for the acquisition at hand, considering primarily complexity 
and risk.'' In evaluating contracts, under what situations would fixed 
price contracts be more suitable?
    Dr. O'Neill. A firm fixed-price contract is suitable for acquiring 
commercial items or for acquiring other supplies or services when the 
contracting officer can establish fair and reasonable prices at the 
outset, such as when: (a) There is adequate price competition; (b) 
There are reasonable price comparisons with prior purchases of the same 
or similar supplies or services made on a competitive basis or 
supported by valid cost or pricing data; (c) Available cost or pricing 
information permits realistic estimates of the probable costs of 
performance; or (d) Performance uncertainties can be identified and 
reasonable estimates of their cost impact can be made, and the 
contractor is willing to accept a firm-fixed price representing 
assumption of the risks involved.

    4. Senator Burris. Dr. O'Neill, under what circumstances would a 
noncompetitive contract be justified, and what safeguards can be put in 
place to protect the taxpayer?
    Dr. O'Neill. The Competition in Contracting Act provides seven 
general exceptions to the baseline requirement for full and open 
competition. It is my understanding that the most commonly used 
exceptions are: (i) when supplies or services are available from only 
one responsible source; (ii) unusual and compelling urgency; and (iii) 
preservation of the industrial mobilization capabilities. While these 
authorities have been in existence for many years, I believe their use 
must be carefully scrutinized and that noncompetitive contracts should 
be used only when fully justified by the underlying facts.
    In a noncompetitive environment, the receipt of contractor cost or 
pricing data and the use of independent government cost estimates can 
assist the contracting officer in ensuring that the contract price is 
fair and reasonable. Additional safeguards include increased oversight, 
internal controls, risk assessments, and quality management.

    5. Senator Burris. Dr. O'Neill, what will you do to address and 
limit cost overruns in cost-plus contracts?
    Dr. O'Neill. I believe that it is important to: (i) adequately 
define contract requirements and develop realistic cost estimates in 
the first instance; (ii) to fully and clearly communicate those 
requirements to industry during the proposal and evaluation process; 
and (iii) to provide vigorous program and contract oversight. 
Additionally, in appropriate circumstances, the use of contract 
incentives can be beneficial. If confirmed, I would ensure that Army 
policies placed appropriate emphasis on cost control, and I would hold 
acquisition managers accountable for results.

    6. Senator Burris. Dr. O'Neill, what are some tools to address this 
issue?
    Dr. O'Neill. In addition to the points summarized in my preceding 
response, an important technique to control costs is the Earned Value 
Management System (EVMS). EVMS provides a systematic means for 
contractors to plan the timely performance of work; budget resources; 
account for costs and measure actual performance against plans. More 
importantly, it provides early warning of significant deviations from a 
contractor's plan to permit corrective actions. If confirmed, I will 
ensure that Army program managers make full use of this important tool.
                                 ______
                                 
    [The nomination reference of Dr. Malcolm Ross O'Neill 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  December 3, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Malcolm Ross O'Neill of Virginia, to be an Assistant Secretary of 
the Army, vice Claude M. Bolton, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Malcolm Ross O'Neill, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of Dr. Malcolm Ross O'Neill
                           civilian education
    Ph.D., Department of Physics, Rice University, Houston, TX, Aug. 
1972-May 1975
    MA, Department of Physics, Rice University, Houston, TX, Aug. 1968-
May 1970
    BS, Department of Physics, DePaul University, Chicago, IL, Aug. 
1958-May 1962
                           military education
    Field Artillery Officer Basic, 1962
    Ranger, 1962
    Airborne, 1963
    Jumpmaster, 1963
    Ordnance Guided Missile Course, 1964
    Military Assistance (Advisor), 1964
    Defense Language Institute (Vietnamese), 1965
    Ordnance Career Course, 1968
    Command and General Staff College, 1972
    Defense Systems Management College, 1974
    Army War College, 1980
                           employment record
    2006-present, Consultant, Self-employed and Chairman, Board on Army 
Science and Technology, The National Academies, Washington, DC
    2000-2006, Vice President and Chief Technical Officer of Lockheed 
Martin Corporation Chief Technical Officer
    1996-2000, Vice President, Mission Success and Operations, in the 
Space and Strategic Missiles Sector Operations and Best Practices, 
Lockheed Martin Corp.
    1993-1996, Director, Ballistic Missile Defense Organization, 
Department of Defense (on Active Duty as a Lieutenant General, U.S. 
Army)
    1990-1993, Deputy Director, Strategic Defense Initiative 
Organization (SDIO), Department of Defense (on Active Duty, U.S. Army)
    1989-1990, Director, Deputy for Program Assessment and 
International Cooperation, Office of Assistant Secretary of the Army 
for Research Development and Acquisition, (on Active Duty, U.S. Army)
    1987-1989, Commander, U.S. Army Laboratory Command (on Active Duty, 
U.S. Army)
    1985-1987, Director, Kinetic Energy Weapons, SDIO, Department of 
Defense (on Active Duty, U.S. Army)
    1983-1985, Program Manager, Multiple Launched Rocket System, U.S. 
Army (on Active Duty, U.S. Army)
    1981-1983, Deputy Program Manager, NATO Patriot Management 
Organization, Munich, Germany (on Active Duty, U.S. Army)
    1977-1980 Program Manager, Strategic Fire Control and Talon Gold, 
Defense Advanced Research Projects Agency, Department of Defense (on 
Active Duty, U.S. Army)
    1974-1976, R&D Coordinator, U.S. Army High Energy Laser Project 
Office, Redstone Arsenal, AL (on Active Duty, U.S. Army)
    1970-1971, Assistant Chief of Staff (Ammunition), Danang Support 
Command, U.S. Army, Vietnam (on Active Duty, U.S. Army)
    1966-1967, Aide de Camp to Commanding General, U.S. Army Missile 
Command, Redstone Arsenal, AL (on Active Duty, U.S. Army)
    1966-1966, Instructor, Ordnance Guided Missile School, Redstone 
Arsenal, AL (on Active Duty, U.S. Army)
    1965-1966, Advisor, 21st Recon Company, 21st ARVN Division (on 
Active Duty, U.S. Army)
    1962-1964, Forward Observer/Platoon Leader, Mortar Battery, 1st 
Battle Group, 187th Infantry, 82nd Airborne Division (on Active Duty, 
U.S. Army)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Malcolm 
Ross O'Neill in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Malcolm Ross O'Neill.

    2. Position to which nominated:
    Assistant Secretary of the Army for Acquisition, Logistics, and 
Technology.

    3. Date of nomination:
    December 3, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 25, 1940; Chicago, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former Judy Maxine Hester.

    7. Names and ages of children:
    Bonnie Kathleen Long, 39; John Hai O'Neill, 38.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Senn High School, Chicago, IL, 1954-1958.
    DePaul University, Chicago, IL, 1958-1962, BS Physics, 1962.
    Rice University, Houston, TX, 1968-1970, MA Physics, 1970.
    Rice University, Houston, TX, 1972-1974, PhD Physics, 1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    VP, Mission Success and Operations, Space and Strategic Missiles 
Sector, Lockheed Martin Corporation, Bethesda, MD, 1996-2000.
    VP, Chief Technical Officer, Lockheed Martin Corp., Bethesda, MD, 
2000-2006.
    Consultant, Self-Employed, Vienna, VA, 2006-Present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Officer, U.S. Army 1962-1996, Retired as Lieutenant General.
    Member, U.S. Air Force Scientific Advisory Board, 2001-2004.
    Member, Board of Visitors, Defense Acquisition University, Fort 
Belvoir, VA.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Board of Visitors, Clark School of Engineering, University 
of Maryland.
    Member, Board of Affiliates, Sloan Masters Program, Rice 
University.
    Director, Draper Laboratory, Cambridge, MA.
    Director, Edmund Optics Corporation, Barrington, NJ.
    Director, Information Systems Labs, San Diego, CA.
    Director, Electronic Warfare Associates, Herndon, VA.
    Chairman, Board on Army Science and Technology of the National 
Academies, Washington, DC.
    Consultant, UT-Battelle LLC, Oak Ridge National Lab, Oak Ridge, TN.
    Consultant, Vanguard Research Inc., Arlington, VA.
    Consultant, Physical Sciences, Inc., Andover, MA.
    Consultant, Lockheed Martin Corporation, Bethesda, MD.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, National Academy of Engineering, Washington, DC.
    Honorary Fellow, American Institute of Aeronautics and 
Astronautics, Washington, DC.
    Member, National Defense Industrial Association, Washington, DC.
    Member, American Association for Advancement of Science, 
Washington, DC.
    Member, Association of the U.S. Army, Washington, DC.
    Member, U.S. Tennis Association, Washington, DC.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    No political offices held; have never been a candidate for any 
political office.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    No political memberships, offices held or services rendered to any 
parties or election committees.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    In years 2004 and 2005 contributed approx. $2,000 each year to 
Lockheed Martin Political Action Committee.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Illinois State Scholarship
    Distinguished Military Student, De Paul University
    Rice University Fellowship Society of Sigma Xi (Science honor 
society)
    Distinguished Graduate, Army Ordnance Guided Missile School, AL
    Distinguished Graduate, Defense Language Institute, Monterrey, CA
    Honor Graduate, Ordnance Career Course, Aberdeen Proving Grounds, 
MD
    Honor Graduate, Army Command and Staff College, Fort Leavenworth, 
KS
    Army Commendation Medal
    Airborne, Ranger, Combat Infantryman Badges
    Bronze Star for Valor with Oak Leaf Cluster
    Vietnamese Cross of Gallantry with Gold Star
    Bronze Star for Merit with Oak Leaf Cluster
    Purple Heart with Oak Leaf Cluster
    Air Medal
    Legion of Merit with Oak Leaf Cluster
    Meritorious Service Medal
    Defense Superior Service Medal
    Defense Distinguished Service Medal
    Order of St. Barbara (U.S. Army Artillery)
    U.S. Army Ordnance Hall of Fame
    Gold Medal of American Defense Preparedness Association

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Electron Spin Polarization in LEED from Tungsten (001),'' Phys 
Rev Ltrs, 1974 (est.)
    ``Artificial Intelligence Aids Logisticians,'' Army Logistics. 
July-August 1990.
    ``Ballistic Missile Defense: 12 Years of Achievement,'' Defense 
Issues, Volume 10, Number 37, April 1995.
    ``BMDO Focussed on the Road to the Future,'' BMP Monitor, 22 Mar 
1996.
    ``Redirecting U.S. Missile Defence,'' International Defence and 
Security Development. No. 1, 1994.
    ``The U.S. Theatre Missile Defence Programme,'' Defence and 
Security Review, 1995.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Malcolm Ross O'Neill.
    This 15th day of December, 2009.

    [The nomination of Dr. Malcolm Ross O'Neill was reported to 
the Senate by Chairman Levin on February 2, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 4, 2010.]
                              ----------                              

    [Prepared questions submitted to Mary Sally Matiella by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for changes to any Goldwater-Nichols Act 
provisions?
    Answer. I am not aware at this time of any changes that are 
required. If confirmed, this will be an area I will examine in depth.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This is an area I will need to examine. If I am confirmed 
and I identify any changes I think are needed, I will coordinate my 
recommendations through the appropriate Army and Defense Department 
process.
duties of the assistant secretary of the army for financial management 
                            and comptroller
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Financial Management and 
Comptroller?
    Answer. I understand that the Assistant Secretary of the Army for 
Financial Management and Comptroller is responsible for directing and 
managing the financial management activities, operations, and 
comptroller functions of the Department of Army, and for advising the 
Secretary of the Army on these matters.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my background qualifies me to serve as Assistant 
Secretary of the Army (Financial Management and Comptroller). I have 29 
years of Federal employment working in accounting and budget positions 
with the Army, Air Force, Defense Finance and Accounting Service, and 
the Office of the Secretary of Defense. I also have served as the 
Assistant Chief Financial Officer (CFO) for Accounting at the 
Department of Housing and Urban Development and as the CFO for the 
Department of Agriculture Forest Service. I have a record of improving 
financial management practices. For example, as CFO, I led the Forest 
Service to its first unqualified audit opinion. I am a Certified Public 
Accountant and a Certified Defense Financial Manager.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the Assistant 
Secretary of the Army for Financial Management and Comptroller?
    Answer. I believe you always need to look for ways to improve your 
overall understanding of fiscal issues. If confirmed, I will 
immediately immerse myself into the many fiscal challenges facing the 
Army today and incorporate any lessons learned from the past into 
future financial operations.
                             relationships
    Question. What is your understanding of the relationship between 
the Assistant Secretary of the Army for Financial Management and 
Comptroller and each of the following:
    The Secretary of the Army.
    Answer. The Assistant Secretary of the Army (Financial Management 
and Comptroller) is the principal advisor to the Secretary of the Army 
on financial matters and directs Comptroller and Financial Management 
functions of the Department of the Army.
    Question. The Under Secretary of the Army.
    Answer. My relationship to the Under Secretary would mirror that of 
the Secretary of the Army.
    Question. The other Assistant Secretaries of the Army.
    Answer. My relationship with the other Assistant Secretaries would 
support the responsibility I would have, if confirmed, to advise the 
Secretary of the Army on financial Management functions and activities 
of the Department of the Army.
    Question. The General Counsel of the Army.
    Answer. If confirmed, I would consult and coordinate with the 
General Counsel on all legal matters within financial management and 
comptroller responsibilities.
    Question. The Deputy Under Secretary of the Army for Business 
Transformation.
    Answer. I have been informed that this position has been 
disestablished and that the business transformation duties formerly 
assigned to this position now fall under the responsibility of the 
Under Secretary of the Army in his role as the Chief Management Officer 
(CMO). If confirmed, I would work closely and collaboratively with the 
CMO to ensure that all approved Business Transformation Initiatives are 
fully supported.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Comptroller) to ensure the Army financial management and 
comptroller policies, practices, and systems dovetailed with those of 
the office of the Under Secretary of Defense (Comptroller).
    Question. The Deputy CMO of the Department of Defense (DOD).
    Answer. If confirmed, I would support the Under Secretary of the 
Army in his role as the CMO with any financial advice required in 
interactions with the Deputy CMO of DOD.
    Question. The Director of the Business Transformation Agency (BTA).
    Answer. The BTA provides support for the Army's financial 
management transformation efforts, particularly in business process 
areas impacting other DOD activities. I understand the Army and BTA are 
currently collaborating to transform business processes to improve how 
we pay our vendors and manage our accounts receivable.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration/Chief Information Officer.
    Answer. If confirmed, I would work to include the Chief Information 
Officer in all financial management system planning and decisionmaking.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I would support the Director of Cost 
Assessment and Program Evaluation in fulfilling his or her role of 
providing independent assessments. I would also work the Director to 
ensure the success of the Planning, Programming, Budgeting, and 
Execution (PPBE) process.
    Question. The Chief of Staff of the Army
    Answer. If confirmed, I would work closely with the Chief of Staff 
of the Army on resourcing and financial management issues.
    Question. The Assistant Secretaries for Financial Management of the 
Navy and the Air Force.
    Answer. If confirmed, I will work closely with the Navy and Air 
Force Assistant Secretaries for Financial Management to maintain 
awareness of current issues and ensure that Army financial management 
and comptroller decisions consider best practices, are better informed, 
and reflect Service cooperation and consistency when appropriate.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Financial Management 
and Comptroller?
    Answer. Any Assistant Secretary of the Army for Financial 
Management will be challenged to improve the financial management 
systems and processes to ultimately allow the Army to receive a clean 
audit on the financial statements. In addition, it is imperative that 
the continuing Overseas Contingency Operations are properly funded to 
ensure the men and women in combat have all the necessary resources 
required to fight and win. The Army must continue to develop defendable 
and executable budgets, with proper accountability and transparency, 
that support the priorities of the Secretary of Defense and the 
Secretary of the Army, under the guidance of the President.
    Question. Assuming you are confirmed, what plans do you have to 
address these challenges?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller), the other Services, and the Army leadership 
to achieve a unified approach to addressing challenges. I will make 
every effort to ensure that the resources required are justified and 
accountable.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Army for Financial Management and Comptroller?
    Answer. If confirmed, I will work towards establishing priorities 
for the preparation of auditable Financial Statements. I will also work 
to ensure that there are adequate resources to support Army priorities 
including Overseas Contingency Operations and Family Support Programs.
         civilian and military roles in the army budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Army for 
Financial Management and Comptroller and the senior military officer 
(the Director, Army Budget) responsible for budget matters in the Army 
Financial Management office in making program and budget decisions, 
including the preparation of the Army Program Objective Memorandum, the 
annual budget submission, and the Future Years Defense Program?
    Answer. I understand the Assistant Secretary of the Army (Financial 
Management and Comptroller) is responsible for all financial matters 
within the Department of the Army. The Military Deputy for Budget is 
the senior military officer within ASA(FM&C) and he is responsible for 
budget matters. This Military Deputy falls under the Assistant 
Secretary for Financial Management and Comptroller's direct 
supervision. I also understand the Assistant Secretary for Financial 
Management and Comptroller has oversight responsibilities on all 
financial aspects of the Program Objective memorandum preparation and 
submission. Direct responsibility for this process belongs to the Army 
G-8, who is also a senior military officer. Financial Management and 
Accountability DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and attempts at efficiencies, problems with 
financial management and data continue.
    Question. What do you consider to be the top financial management 
issues that must be addressed by the Department of the Army?
    Answer. I believe the Army's most pressing financial management 
challenge is producing timely, reliable, and accurate financial 
information that is capable of passing an audit. I understand the DOD 
Comptroller directed the Department of the Army to achieve an audit of 
the Statement of Budgetary Resources, and establish existence and 
completeness of mission critical assets. If confirmed, I will work with 
the DOD Comptroller and the Under Secretary of the Army in his role as 
CMO to support these objectives.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Army?
    Answer. If confirmed, I will ensure the Army has a solid plan to 
achieve the comptroller's objectives of an audit of the Statement of 
Budgetary Resources, and establish existence and completeness of 
mission critical assets and that the plan is linked to the Department's 
enterprise transition plan (ETP) and Financial Improvement and Audit 
Readiness (FIAR) plan.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by DOD and the Department of the Army?
    Answer. I am not currently in a position to advocate for the 
adoption of any specific business practices for the Army. If I am 
confirmed, I will study how the Department does business now and work 
with the DOD and Army chief management officers (CMOs) and the BTA to 
identify any private business practices that may help to improve Army 
financial management.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Army's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and anticipated results are being achieved?
    Answer. If confirmed, I will rely on metrics established in the 
Army's Financial Improvement Plan (FIP) and the DOD FIAR Plan as the 
basis for measuring financial operations performance. I would also 
assess if there are any other performance measures available that would 
help the Army better evaluate itself.
    Question. The BTA was established in DOD to strengthen management 
of its business systems modernization effort.
    What is your understanding of the mission of this Agency and how 
its mission affects the responsibilities of the Assistant Secretary of 
the Army for Financial Management and Comptroller?
    Answer. I understand the BTA was established to improve the 
management of business systems and systems modernization efforts. If 
confirmed, I will work with the BTA to ensure the Army's business 
systems and modernization efforts conform to its standards as codified 
in the DOD Business Enterprise Architecture (BEA).
    Question. What is your understanding of the role of the Assistant 
Secretary of the Army for Financial Management and Comptroller in 
providing the Army's views to the Agency, or participating in the 
decisionmaking process of the Agency, on issues of concern to the Army?
    Answer. My understanding is the Assistant Secretary's role is to 
collaborate with the BTA in the development of the BEA and ETP, and to 
ensure the Army's financial management modernization efforts conform 
with these efforts.
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designated the Under Secretary of the Army as the CMO 
of the Army. Section 908 of the National Defense Authorization Act for 
Fiscal Year 2009 required the establishment of a Business 
Transformation Office within the Army to assist the CMO in carrying out 
his duties.
    Question. If confirmed, what would your role be in the Department's 
business modernization effort?
    Answer. I understand the law designated the Under Secretary as the 
Army's CMO and that the Secretary of the Army charged the CMO with the 
responsibility to effectively and efficiently organize the Army's 
business operations. If confirmed I will ensure the Army's financial 
modernization efforts support and complement the CMO's business 
transformation initiatives.
    Question. What is your understanding of the relative 
responsibilities of the Deputy Under Secretary of the Army for Business 
Transformation and the Assistant Secretary of the Army for Financial 
Management and Comptroller (ASA(FM&C)) in Army business systems 
modernization and improvements in financial management?
    Answer. It is my understanding that the position of the Deputy 
Under Secretary of the Army for Business Transformation has been 
disestablished and that the business transformation duties formerly 
assigned to this position now fall under the responsibility of the 
Under Secretary of the Army in his role as the CMO. Further, the 
Secretary of the Army has established an Office of Business 
Transformation to assist the CMO. If confirmed as the ASA(FM&C) I would 
be responsible for directing and managing the financial activities, 
operations, and systems of the Department of the Army in accordance 
with established standards and capabilities and for maintaining and 
annually revising a 5-year plan describing the activities the Army 
proposed to conduct over the next 5 fiscal years to improve financial 
management. In my view, it appears likely that the duties of the CMO 
and the ASA(FM&C) will be complementary and that a close and 
collaborative relationship between the CMO and the ASA(FM&C) will work 
to the mutual benefit of the Army as a whole.
    Question. Do you believe the organizational structure of the 
Department of the Army is properly aligned to bring about business 
systems modernization and improvements in the financial management of 
the Army?
    Answer. I am not sufficiently familiar with the Army's 
implementation of the Business Transformation Office to have an opinion 
on whether the Army is properly aligned to bring about business 
modernization; however, I believe that establishment of the CMO and 
Business Transformation Office can only facilitate the Army's ability 
to modernize business systems and improve its financial management.
    Question. If not, how do you believe the Department should be 
restructured to more effectively address these issues?
    Answer. I do yet have an opinion on whether the Army is properly 
aligned or needs to be restructured. I do believe the establishment of 
the CMO and Business Transformation Office should help the Army 
modernize business systems and improve its financial management.
    Question. Section 2222 of title 10, U.S.C., requires DOD to develop 
a BEA and Transition Plan to ensure that the Department's business 
systems are capable of providing timely, accurate, and reliable 
information, including financial information, on which to base 
management decisions. The Department also prepares an annual FIAR plan 
aimed at correcting deficiencies in DOD's financial management and 
ability to receive an unqualified ``clean'' audit. Section 376 of the 
National Defense Authorization Act for Fiscal Year 2006 required that 
the FIAR plan be systematically tied to the actions undertaken and 
planned pursuant to section 2222.
    If confirmed, what role would you expect to play in the formulation 
of the Army's contribution to the BEA and Transition Plan and the FIAR 
plan?
    Answer. If confirmed, I expect to play a significant role in 
ensuring the Army's FIP and financial business systems modernization 
efforts align with the Department's BEA and FIAR plan.
    Question. What steps would you take, if confirmed, to ensure that 
the Army's contribution to the FIAR plan is systematically tied to 
actions undertaken and planned in accordance with section 2222?
    Answer. If confirmed, I will ensure the Army's FIP provides the 
appropriate measures to correct deficiencies preventing the Army from 
providing timely, reliable, and accurate financial information and that 
the Army's plan is linked to the Department's FIAR plan. At this time, 
I am unfamiliar with section 2222, but if confirmed, I will learn about 
it and ensure the Army complies with it.
    Question. The Comptroller General has testified that DOD should fix 
its financial management systems before it tries to develop auditable 
financial statements. He explained that: ``Given the size, complexity, 
and deeply ingrained nature of the financial management problems facing 
DOD, heroic end-of-the-year efforts relied on by some agencies to 
develop auditable financial statement balances are not feasible at DOD. 
Instead, a sustained focus on the underlying problems impeding the 
development of reliable financial data throughout the Department will 
be necessary and is the best course of action.''
    Do you agree with this statement?
    Answer. I do agree with this statement. If confirmed, I will ensure 
the Army develops and implements financial improvements that correct 
underlying problems, including those associated with financial 
management systems, and that these improvements result in sustainable 
business processes enabling the Army to produce timely, reliable, and 
accurate financial information. With the production of timely, 
reliable, and accurate financial data, obtaining an unqualified audit 
opinion becomes an achievable goal.
    Question. What steps need to be taken in the Army to achieve the 
goal stated by the Comptroller General?
    Answer. I believe the Army needs to implement improvements 
supported by sustainable business processes and modern financial 
systems with the full support and commitment of the Army leadership.
                      personnel budget shortfalls
    Question. During the last few fiscal years, the Army has 
experienced significant shortfalls in its personnel accounts that 
required a reprogramming to overcome. Last year, the shortfall was 
nearly $2 billion and was primarily corrected via supplemental 
appropriations.
    Has the Army corrected the issues and revised the budget 
assumptions that gave rise to the previous years' personnel funding 
shortfalls?
    Answer. I have no direct knowledge of the steps the Army has or has 
not taken to correct these issues. If confirmed, I will make this a 
priority early in my tenure as the Assistant Secretary of the Army 
(Financial Management and Comptroller) and take any actions I believe 
appropriate after studying the issues and coordinating with the Under 
Secretary of Defense (Comptroller).
    Question. Does the Army continue to assume risk in its personnel 
accounts, and if so, where and to what extent?
    Answer. I do not yet know about where or to what extent the Army is 
accepting any risk in its personnel accounts. If I am confirmed, I will 
make this issue a priority.
           defense integrated military human resources system
    Question. For several years, the Department has been working on the 
Defense Integrated Military Human Resources System (DIMHRS), an 
integrated joint military personnel and pay system for all the Military 
Services, as a means to eliminate obsolete legacy payroll and personnel 
management systems.
    What is your understanding of the Army's requirement for DIMHRS and 
the adequacy of the current version of DIMHRS to meet the Army's 
requirements?
    Answer. I am not fully aware of the issues with the Army's current 
personnel and payroll systems. If confirmed, I will familiarize myself 
with the available systems and work with the CMO and Assistant 
Secretary of the Army for Manpower and Reserve Affairs to determine 
what system is appropriate for the Army's future personnel and payroll 
management systems.
               supplemental funding and annual budgeting
    Question Since September 11, 2001, DOD has paid for much of the 
cost of ongoing military operations through supplemental 
appropriations. The fiscal year 2010 budget includes a full-year 
request for overseas contingency operations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. I believe that the long term reliance on supplemental 
appropriations to fund an ongoing conflict is problematic. If 
confirmed, this will be an issue I will want to study further.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
the Army?
    Answer. The U.S. Code specifically states that such authorization 
is necessary before funds for the appropriations listed above may be 
obligated or expended. If confirmed, I will follow the law, policies, 
and procedures directed by the Under Secretary of Defense (Comptroller) 
in dealing with any specific line items which might fall under the 
``appropriated but not authorized'' category.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Financial Management and Comptroller?
    Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee of Congress, or to consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
             Question Submitted by Senator Roland W. Burris
                              army budget
    1. Senator Burris. Ms. Matiella, what will you do to increase 
transparency of the Army budget?
    Ms. Matiella. Throughout my career in Federal Service it has been a 
goal to provide transparency to both budget formulation and execution. 
I have found if an agency has financial statements capable of receiving 
an unqualified audit opinion, then it has budgetary and proprietary 
data that is transparent, accurate, and credible, and thus, meets the 
data requirements of the Army's many stakeholders. I see it as one of 
my main responsibilities to ensure the Army has the policies, staff, 
and systems in place to facilitate audit readiness, which will 
ultimately lead to greater budget transparency and accountability. If 
confirmed, I pledge to work closely with the congressional committees 
to provide timely and accurate information to facilitate understanding 
of the Army's financial position and requirements.
                                 ______
                                 
    [The nomination reference of Mary Sally Matiella follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Mary Sally Matiella, of Arizona, to be Assistant Secretary of the 
Army, vice Nelson M. Ford, resigned.
                                 ______
                                 
    [The biographical sketch of Mary Sally Matiella, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Mary Sally Matiella
                               education
    University of Arizona, Tucson, AZ, Bachelor of Arts, 1973
    University of Arizona, Tucson, AZ, Master of Business 
Administration, 1976
    George Washington University, Washington DC, Educational 
Specialist, 2007
    George Washington University, Washington DC, Doctoral studies in 
Human and Organizational Learning, all but dissertation (ABD)
                         professional education
    Air Command and Staff College, in seminar, 1990
    Professional Military Comptroller School, 1991
    Air War College, in seminar, 1991
    Defense Resource Management School, 1998
    Federal Executive Institute, 2000
    Senior Managers in Government, 2003
                           employment history
    2004-2008, Assistant Chief Financial Officer for Accounting, 
Department of Housing and Urban Development, Washington DC
    2001-2004, Chief Financial Officer (CFO), USDA Forest Service, 
Washington DC
    1999-2001, Staff Accountant, Office of the Under Secretary of 
Defense, Comptroller, Pentagon, Arlington, VA
    1995-1998, Director of Accounting, Defense Finance and Accounting 
Service (DFAS)-SB, CA
    1994-1995, Director of the CFO Implementation Office, DFAS-DE, 
Denver, CO
    1992-1994, Staff Accountant, CFO Implementation Office, DFAS-DE, 
Denver, CO
    1989-1992, Systems Accountant, Directorate of Accounting, DFAS-DE, 
Denver, CO
    1986-1989, Senior Systems Accountant, Accounting Policy, Procedures 
and Systems Branch, Fort Clayton, Panama
    1983-1986, Systems Accountant, Accounting Systems Development 
Branch, Air Force and Accounting Service, Denver, CO
    1980-1983, Budget Analyst, Ramstein Air Force Base, Ramstein, 
Germany
    1978-1980, Auditor, TX Dept of Mental Health and Mental 
Retardation, Austin, TX
    1977-1978, Management Analyst, University of Texas, Austin, TX
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mary Sally 
Matiella in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mary Sally Matiella.

    2. Position to which nominated:
    Assistant Secretary of the Army for Financial Management and 
Comptroller.

    3. Date of nomination:
    November 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 21, 1951; Three Rivers, TX.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Francisco Alberto Matiella.

    7. Names and ages of children:
    Maria Alejandra Matiella-Novak, 31.
    Francisco Jose Matiella, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Pueblo High School, Tucson, AZ, 1965-1969, High School Diploma, 
1969.
    University of Arizona, Tucson, AZ, 1968-1973, BA, 1973.
    University of Arizona, Tucson, AZ, 1973-1976, MBA, 1976.
    George Washington University, Washington DC, 2006-2007, EdS 2007.
    George Washington University, Washington DC, 2006-present, EdD (all 
but dissertation).
Certificates/Licenses:
    Certified Public Accountant (Colorado)
    Certified Defense Financial Manager (Virginia)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Assistant Chief Financial Officer for Accounting; Department of 
Housing and Urban Development; 451 7th St, SW, Washington DC; April 
2004-August 2008.
    Chief Financial Officer; USDA Forest Service; 201 14th Street, SW, 
Washington DC; December 2001-April 2004.
    Staff Accountant; OUSD Comptroller; Pentagon, Arlington, VA; 
January 1999-December 2001.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Governing Board Audit Committee, Tucson School Board, Tucson 
Unified School District; member; unpaid; April 2009 to present.
    Director of Accounting, Defense Finance and Accounting Service 
(DFAS)-SB, CA; 1995-1998.
    Director of the CFO Implementation Office, DFAS-DE, Denver, CO; 
1994-1995.
    Staff Accountant, CFO Implementation Office, DFAS-DE, Denver, CO; 
1992-1994.
    Systems Accountant, Directorate of Accounting, DFAS-DE, Denver, CO; 
1989-1992.
    Senior Systems Accountant, Accounting Policy, Procedures and 
Systems Branch, Fort Clayton, Panama; 1986-1989.
    Systems Accountant, Accounting Systems Development Branch, Air 
Force and Accounting Service, Denver, CO; 1983-1986.
    Budget Analyst, Ramstein Air Force Base, Ramstein, Germany; 1980-
1983.
    Auditor. Texas Department of Mental Health and Mental Retardation, 
Austin, TX; 1978-1980.
    Management Analyst, University of Texas, Austin, TX; 1977-1978.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Academy of Management, member
    Association of Government Accountants, member
    American Society of Military Comptrollers, member

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    USDA Secretary's Group Honor Award for Excellence, 2003.
    Office of the Secretary of Defense, Award for Excellence, 2001.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Formal Speeches: None.
    Powerpoint presentation: Federal Financial Management Conference, 
Washington DC, March 11, 2008. Topic: Intragovemmental Business 
Practices.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Maria Sally Matiella.
    This 15th day of December, 2009.

    [The nomination of Mary Sally Matiella was reported to the 
Senate by Chairman Levin on February 2, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 11, 2010.]
                              ----------                              

    [Prepared questions submitted to Paul Luis Oostburg Sanz by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols was very effective in clarifying the 
chain of command, strengthening civilian leadership of the military, 
and enhancing the ability of the Services to act jointly. I am not 
currently aware of any need to change Goldwater-Nichols at this time. 
If confirmed, I am committed to supporting the intent of Goldwater-
Nichols and forwarding any suggestions for change to the Secretary and 
Under Secretary of the Navy.
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. I am not currently aware of any modifications that are 
needed to Goldwater-Nichols.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Navy?
    Answer. The General Counsel is the chief legal officer of the 
Department, and legal opinions issued by the General Counsel are the 
controlling legal opinions within the Department. However, the General 
Counsel cannot derogate the authority of the Judge Advocate General of 
the Navy under section 5148(d) of title 10, U.S.C., and other 
applicable law. The General Counsel provides legal advice, counsel, and 
guidance to the Secretary, the Under Secretary, the Assistant 
Secretaries, and their staffs. He is also responsible for providing 
legal services throughout the Department in a variety of fields, 
including: acquisition law, including international transactions; 
business and commercial law; real and personal property law; civilian 
personnel and labor law; fiscal law; environmental law; intellectual 
property law; intelligence law; ethics and standards of conduct; and 
Freedom of Information Act and Privacy Act law. He is responsible for 
litigation in the areas enumerated above, and oversees all litigation 
affecting the Department. The General Counsel also serves as the 
Suspending and Debarring Official and Designated Agency Ethics Official 
for the Department, and assists the Under Secretary of the Navy in 
overseeing the Naval Criminal Investigative Service.
    In addition, per section 5019 of title 10, U.S.C., the Secretary of 
the Navy may prescribe other duties and functions for the General 
Counsel as the Secretary deems appropriate.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The responsibilities of the General Counsel of the 
Department of the Navy are quite broad. Overall, it is essential for 
the General Counsel to possess sound legal and analytical skills, with 
a willingness to work collaboratively with individual experts over a 
variety of fields. The General Counsel of the Navy must have strong 
managerial skills as well as possess effective leadership abilities. I 
believe that my work as General Counsel for the House Armed Services 
Committee (HASC) and other previous work experiences in Federal 
Government and elsewhere have prepared me well to execute the duties of 
General Counsel of the Department of the Navy, if confirmed.
    For nearly 3 years, I have served as the chief legal officer for 
the HASC. My principal responsibility in this position has been to 
advise the Chairman and the Staff Director of the HASC in the 
development, consideration, and enactment of the annual National 
Defense Authorization Acts (NDAA). A significant part of that process 
has been identifying, negotiating, and resolving approximately 100 
jurisdictional claims by numerous congressional committees related to 
the NDAA. As General Counsel of the HASC, I also have provided legal 
counsel to the HASC on criminal investigations involving former HASC 
members or other members, personnel-related matters, compliance with 
professional ethical obligations under the rules of the House of 
Representatives and current law, and other issues such as responding to 
Freedom of Information Act requests. In addition, I have advised the 
Chairman and other HASC Members on detainee policy, the activities of 
the Department of Defense (DOD) to counter the illicit narcotics trade, 
and matters related to the U.S. Southern Command. For each of these 
substantive policy areas, I have conducted oversight of administration 
policies and programs, drafted legislative proposals, been prepared to 
testify before the HASC, as well as negotiated directly with senior 
administration officials, Members of Congress, and outside interest 
groups.
    From 2001 to 2006, I was the Deputy Chief Counsel for the 
Democratic Staff of the House International Relations Committee. In 
that position, I fulfilled many similar counsel and legislative 
responsibilities that I would later perform on the HASC. Before 
beginning work in Congress, I clerked for Judge Jose A. Fuste in the 
U.S. District Court for the District of Puerto Rico for nearly 2 years. 
Prior to receiving a law degree from Harvard Law School and a Master in 
Public Affairs from Princeton University, I conducted political party 
training in South Africa during the first all-inclusive national 
elections, as a Project Officer for the Joint Center for Political and 
Economic Studies, and served as a Peace Corps volunteer in Guinea-
Bissau, West Africa, teaching English in secondary schools.
    As a result of my background and these professional experiences, I 
understand the general challenges and opportunities of the Department, 
appreciate the intersection of legal and policy questions, have 
established many working relationships in DOD and elsewhere in the 
administration, and developed experience managing people and processes 
to achieve high-stakes outcomes. All of which will permit me to perform 
efficiently and effectively the duties of General Counsel, if 
confirmed.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Navy?
    Answer. I am confident that I possess the requisite legal expertise 
and leadership skills to be the next General Counsel of the Department 
of the Navy. If confirmed, I anticipate requesting further information 
about the major legal challenges facing the Department so as to sharpen 
my understandings of these matters and be able to provide more nuanced 
counsel to the Secretary and Under Secretary of the Navy. In addition, 
I strongly believe that establishing and maintaining productive working 
relationships with the career civil servants in the Office of General 
Counsel (OGC) and throughout the Department as well as the Judge 
Advocate General of the Navy, the Staff Judge Advocate to the 
Commandant of the Marine Corps, the General Counsel of DOD, and the 
General Counsels of the other Services, is paramount. If confirmed as 
the General Counsel, I hope to benefit from their knowledge and 
judgment as we seek to best serve our sailors, marines, their families, 
and the civilian employees of the Department.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Navy would prescribe for you?
    Answer. If confirmed, I expect that the Secretary will rely upon me 
as the chief legal officer of the Department. I expect that the 
Secretary will require my candid and objective legal advice on all 
issues facing the Department of the Navy. I also anticipate that the 
Secretary will expect me to continue the collaborative relationship 
which currently exists between the General Counsel, the Judge Advocate 
General of the Navy, and the Staff Judge Advocate to the Commandant of 
the Marine Corps so as to further the interests of the uniformed men 
and women of the Department.
    Question. In carrying out your duties, how will you work with the 
General Counsel of DOD?
    Answer. The General Counsel of the DOD is the chief legal officer 
of DOD. If confirmed, I will work closely with the General Counsel of 
DOD on matters of mutual interest or concern. If confirmed, I also 
expect to collaborate and coordinate with the General Counsels of the 
other military departments, defense agencies, other agencies, and 
Congress, when necessary and appropriate.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Navy?
    Answer. The Department of the Navy faces many substantive issues in 
future years. These must be addressed with timely, accurate, and well 
reasoned legal advice. It is essential that the Department possess a 
robust cadre of military and civilian attorneys. If confirmed, my major 
challenge will be to ensure that sufficient resources exist to continue 
to hire and retain the talented and dedicated professionals who are 
needed to meet the diverse and changing requirements of the Department 
and that these professionals have opportunities to perfect their craft 
and excel throughout their careers in the Department of the Navy.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will review the resources, organization, 
and operation of the Office of the General Counsel, and work in 
collaboration with the Judge Advocate General of the Navy and the Staff 
Judge Advocate to the Commandant to identify opportunities for growth 
and resource requirements.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Navy?
    Answer. If confirmed, my highest priorities will be to ensure that 
the Department of the Navy receives the highest quality legal advice 
and services and that the attorneys of the Office of the General 
Counsel continue to explore ways to strengthen cooperation with their 
uniformed colleagues in the offices of the Judge Advocate General of 
the Navy and the Staff Judge Advocate to the Commandant of the Marine 
Corps.
   relationship with the judge advocate general and the staff judge 
             advocate to the commandant of the marine corps
    Question. What is your understanding of the role and authority of 
the Judge Advocate General of the Navy vis-a-vis the General Counsel of 
the Navy and the Staff Judge Advocate to the Commandant of the Marine 
Corps (SJA CMC)?
    Answer. The Judge Advocate General of the Navy is responsible for 
providing legal and policy advice to the Secretary of the Navy on 
military justice, administrative law, claims, investigations, 
operational and international law, legal assistance, civil law, 
environmental law, intelligence, and litigation involving matters under 
his practice areas. If confirmed, I anticipate that we will consult 
with each other on matters of mutual interest or concern relating to 
military justice. With respect to civil law matters involving Navy and 
Marine Corps components, my understanding is that primary 
responsibility is divided, by major subject area, between the Office of 
the General Counsel and the Office of the Judge Advocate General. I am 
certain that there will be situations in which our responsibilities 
overlap and create seams in the administration of legal services. In 
those instances, I would expect that we would work together to ensure a 
collaborative approach.
    Question. In carrying out your duties, if you are confirmed, how 
will you work with the Judge Advocate General of the Navy and the SJA 
CMC?
    Answer. If confirmed, it is paramount that I, the Judge Advocate 
General of the Navy, and Staff Judge Advocate to the Commandant have a 
working relationship that builds upon the strong tradition of 
partnership among the three legal offices and continues to consult, 
communicate, and cooperate to the greatest extent possible for the 
benefit of our clients throughout the Department of the Navy.
    Question. How are the legal responsibilities of the Department of 
the Navy allocated between the General Counsel and the Judge Advocate 
General and the SJA CMC?
    Answer. The General Counsel is the chief legal officer of the 
Department of the Navy, and the principal legal advisor to the 
Secretary of the Navy, the Assistant Secretaries, and their staffs, and 
is the head of the Office of the General Counsel. The Office of the 
General Counsel's practice includes business and commercial law, 
environmental law, personnel and labor law, fiscal law, intellectual 
property law, and ethics, among other subjects. The Judge Advocate 
General of the Navy also reports directly to the Secretary of the Navy 
and generally provides legal services in the areas of military justice, 
international law, matters associated with military operations, 
environmental law, military personnel law, administrative law, claims, 
and ethics. The Staff Judge Advocate to the Commandant of the Marine 
Corps is the senior military lawyer to the Commandant, and his 
responsibilities largely parallel those of the Judge Advocate General 
of the Navy. Although the responsibilities of the General Counsel, the 
Judge Advocate General, and Staff Judge Advocate to the Commandant will 
overlap on occasion, I understand that the three offices have recently 
agreed to a strategy for collaborating on issues of mutual interest or 
concern, called ``One Mission, One Team: A 21st Century Strategic 
Vision for Legal Support in the U.S. Department of the Navy.''
    Question. How will you ensure that legal opinions of your office 
will be available to Navy and Marine Corps attorneys, including judge 
advocates?
    Answer. I understand that the legal opinions of the Office of the 
General Counsel are disseminated throughout the Department of the Navy 
via normal Departmental distribution processes. If confirmed, I expect 
to continue this practice and identify, if necessary, new digital media 
for more targeted and timely distributions.
    Question. In response to attempts within DOD to subordinate legal 
functions and authorities of the Judge Advocates General to the General 
Counsels of DOD and the Military Services, Congress enacted legislation 
prohibiting any officer or employee of DOD from interfering with the 
ability of the Judge Advocates General of the Military Services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs.
    What is your view of the need for the Judge Advocate General of the 
Navy and the SJA CMC to provide independent legal advice to the 
Secretary of the Navy and the Chief of Naval Operations, and the 
Commandant of the Marine Corps?
    Answer. The Judge Advocate General of the Navy and the Staff Judge 
Advocate to the Commandant of the Marine Corps must be in a position to 
provide their best independent legal advice to the Secretary of the 
Navy, the Chief of Naval Operations, and the Commandant of the Marine 
Corps, as appropriate. Effective decisionmaking cannot occur without 
their candid, honest, and objective analysis.
    Question. What is your view of the responsibility of Navy and 
Marine Corps judge advocates to provide independent legal advice to 
military commanders?
    Answer. It is the responsibility of Navy and Marine Corps judge 
advocates to provide independent legal advice to military commanders. 
This advice must be free of any improper external influence.
    Question. If confirmed, would you propose any changes to the 
current relationships between the Judge Advocate General, the SJA CMC, 
and the General Counsel?
    Answer. I am not aware of any changes that are required to the 
current relationships between the uniformed judge advocates and the 
General Counsel of the Department of the Navy. I am aware of the 
independent review directed by Section 506 of the National Defense 
Authorization Act for Fiscal Year 2010. If confirmed, I will study 
closely the findings of that Commission and, if appropriate, consider 
any of their recommendations for improving these relationships.
    Question. Article 6 of the Uniform Code of Military Justice (UCMJ) 
gives primary jurisdiction over military justice to the Judge Advocates 
General of the Army, Navy, and Air Force and, in the Marine Corps, to 
the Commandant of the Marine Corps.
    How do you view the responsibilities of the Navy General Counsel in 
the performance of military justice matters with regard to the Judge 
Advocate General of the Navy and the SJA CMC?
    Answer. The Judge Advocates General of the Military Services have 
primary jurisdiction over the performance of military justice. If 
confirmed, as the chief legal officer of the Department of the Navy, I 
will have an interest in the administration of military justice and, as 
an example, anticipate participating in the Secretary of the Navy's 
review of the DOD's Inspector General's report on the court-martial 
appellate review process within the Department of the Navy, as required 
by the Senate Armed Services Committee in the committee's report 
accompanying this year's defense authorization bill. If confirmed, I 
would endeavor to continue the close working relationship with the 
Judge Advocate General of the Navy and Staff Judge Advocate to the 
Commandant of the Marine Corps, in which we share information and work 
collaboratively when necessary to resolve issues of policy and matters 
pertaining to specific cases.
                          attacks at fort hood
    Question. The recent attack that resulted in the deaths of 12 
soldiers and 1 civilian employee and the wounding of many more at Fort 
Hood was allegedly carried out by a Muslim Army medical officer. Media 
reports indicate that warning signs of the Major's extremist views were 
observed but not documented in official personnel records that were 
shared with the FBI.
    In your view, do current Navy and Marine Corps policies limit the 
ability to include information in official records that may assist in 
the identification of potential threats?
    Answer. I am not aware of the policies that currently exist within 
the Department of the Navy in this matter. If confirmed, I will look 
into this issue and allow for this type of information to be included 
in official personnel records.
    Question. Do current Navy and Marine Corps procedures hinder the 
ability to share this type of information with other official agencies 
charged with identifying and monitoring potential extremist or 
terrorist activities?
    Answer. I am not aware of the procedures currently in operation to 
address this issue. If confirmed, I will inquire into these procedures 
and provide my recommendations to the Secretary and Under Secretary of 
the Navy regarding the impact of existing procedures on the monitoring 
of potential threats.
    Question. What is your understanding of how the Department of the 
Navy balances the need to identify and respond to potentially harmful 
extremist views held by soldiers against individual privacy and respect 
for the right of sailors and marines to hold and express personal 
beliefs?
    Answer. The proper balance between individual privacy rights and 
the need to identify threats is very difficult to attain. I am not 
aware of how the Department currently balances these interests. If 
confirmed, I will inquire into this issue and provide my 
recommendations to the Secretary and Under Secretary of the Navy.
    Question. Do you see a need for a change in this balance?
    Answer. I am not aware of a need to change this balance at this 
time.
                attorney recruiting and retention issues
    Question. If confirmed, how do you assess your ability to hire and 
retain top quality attorneys and provide sufficient opportunity for 
advancement?
    Answer. It is my understanding that the Department of the Navy 
continues to hire outstanding civilian attorneys. If confirmed, I will 
work with the senior staff of the Office of the General Counsel to 
address any recruiting and retention issues.
    Question. In your view, does the Department of the Navy have a 
sufficient number of civilian and military attorneys to perform its 
missions?
    Answer. I do not know whether there are a sufficient number of 
attorneys to perform their ongoing missions. I am familiar with the 
Department of the Navy's Center for Naval Analyses (CNA) assessment 
regarding JAG Corps manning. If confirmed, I will work with the Judge 
Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant of the Marine Corps to ensure the Department has a 
sufficient number of highly skilled lawyers to meet its requirements.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. I am not currently aware of any new incentives that need to 
be implemented at this time.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in helping 
DOD and the Department of the Navy address legal issues regarding 
detainees?
    Answer. As General Counsel of the HASC, I have closely monitored 
the policies and activities of DOD relating to detainees and have 
worked on related legislation. If confirmed, and if requested, I would 
expect to play an active role in assisting the General Counsel of DOD, 
the Judge Advocate General of the Navy and the Staff Judge Advocate to 
the Commandant in addressing this complicated issue.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. This prohibition is in the national security interests of 
the United States and generally in the best interest of our country.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. Yes, I do, with the understanding that the scope of the 
definition will continue to evolve with the case law on the 
Constitutional prohibition against cruel, unusual, and inhumane 
treatment or punishment.
    Question. What role do you believe the General Counsel of the Navy 
should play in the interpretation of this standard?
    Answer. Within the guidance provided by the General Counsel of DOD, 
the legal interpretation of the standard by the General Counsel of the 
Navy, as approved by the Secretary of the Navy, should be controlling 
within the Department of the Navy.
    Question. What role do you believe the Judge Advocates General of 
the Navy and the SJA CMC should play in the interpretation of this 
standard?
    Answer. The Judge Advocate General of the Navy and the SJA CMC 
should also play a prominent role in the interpretation of this 
standard. If confirmed, and if called upon to offer any guidance on 
this standard, I will work with the Judge Advocate General of the Navy 
and the Staff Judge Advocate to the Commandant to incorporate their 
unique perspectives that are informed by the Navy JAG Corps' and the 
Marine judge advocates' field experiences.
    Question. If confirmed, will you take steps to ensure that all 
relevant Navy and Marine Corps directives, regulations, policies, 
practices, and procedures fully comply with the requirements of Section 
1403 and with Common Article 3 of the Geneva Conventions?
    Answer. Yes, I will.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes, I do.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of Common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. If confirmed, I expect to review this issue more closely 
and work with the General Counsel of DOD to promote the ``golden 
rule.''
                     contractors on the battlefield
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. The extensive involvement of contractor employees in a 
broad array of activities--including security functions--has raised 
questions about the legal accountability of contractor employees for 
their actions.
    Do you believe that current DOD and Department of the Navy 
regulations appropriately define and limit the scope of security 
functions that may be performed by contractors in an area of combat 
operations?
    Answer. I have not had an opportunity to become familiar with the 
specific provisions of the Department's regulations in this area. If 
confirmed, I will review these regulations as soon as possible.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. If confirmed and after reviewing the regulations, I will 
make such recommendations as may be necessary.
    Question. Do you believe that current DOD and Department of the 
Navy regulations appropriately define and limit the scope of contractor 
participation in the interrogation of detainees?
    Answer. Although I am not familiar with the Department's 
regulations in this area, I know that section 1038 of the National 
Defense Authorization Act for Fiscal Year 2010 (P.L. 111-84) prohibits 
contractors from interrogating detainees but permits contractors to 
perform some supporting roles with regard to these interrogations.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. If confirmed and after reviewing the regulations, I will 
make such recommendations as may be necessary.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons''.
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. I have not had the opportunity to be briefed on this issue. 
If confirmed, I will carefully review the governing regulations to 
provide the appropriate legal advice and guidance.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. Yes, and I am aware that Congress enacted section 1057 of 
the National Defense Authorization Act for Fiscal Year 2009 (P.L. 110-
417) affirming this position.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, and if requested, I would expect to play an 
active role in assisting the General Counsel of DOD in addressing this 
complicated issue.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I am generally aware of the MEJA provisions and appreciate 
the importance of appropriate accountability over all persons 
supporting our Armed Forces wherever they may be located. See, e.g., 
section 861(a)(6) of the National Defense Authorization Act for Fiscal 
Year 2008 (P.L. 110-181). If I am confirmed, it will be a high priority 
of mine to achieving that objective.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. At this time, I am not aware of any legislative changes 
that are needed to be made to MEJA.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, and if requested, I would expect to play an 
active role in assisting the General Counsel of DOD in addressing this 
complicated issue.
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of the military courts 
under the UCMJ to persons serving with or accompanying an armed force 
in the field during time of declared war or a contingency operation, 
such as our current operations in Iraq and Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I understand and appreciate the importance of appropriate 
accountability over all persons supporting our armed forces wherever 
they are located. I do not now have an informed view about whether the 
UCMJ currently provides the appropriate jurisdictional reach.
    Question. What is your view of the procedures agreed upon by DOD 
and the Department of Justice to reconcile jurisdictional 
responsibilities under MEJA and the UCMJ?
    Answer. I am generally aware that there are procedures to reconcile 
these responsibilities, but I do not now have an informed view about 
whether the procedures strike the appropriate balance in the exercise 
of criminal jurisdiction.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. I am not prepared to recommend any changes to the UCMJ at 
this time.
    Question. What are your views on the impact of Article 12 of the 
Status of Forces Agreement between the United States and Iraq on U.S. 
jurisdiction over contractor personnel pursuant to either MEJA or the 
UCMJ?
    Answer. I have not had the opportunity to study this issue, but if 
confirmed, I will carefully review the SOFA, MEJA, and UCMJ to provide 
the appropriate legal advice and guidance.
    Question. How are jurisdictional matters arising out of Article 12 
being addressed?
    Answer. I am not aware of how jurisdictional matters arising out of 
Article 12 are currently being addressed. However, if confirmed, I will 
carefully review all applicable authorities to provide the appropriate 
legal advice and guidance to the Department of the Navy.
    manpower requirements for navy and marine corps judge advocates
    Question. The CNA recently completed a study of manpower 
requirements for the Navy's Judge Advocate Generals Corps in which it 
concluded that the Navy is significantly understrength for its various 
legal missions, including combat service support in Iraq and 
Afghanistan. Section 506 of the National Defense Authorization Act for 
Fiscal Year 2010 established an independent panel to review the judge 
advocate requirements of the Navy and Marine Corps and make appropriate 
recommendations.
    What is your understanding of the CNA study's findings with respect 
to manpower in the Navy JAG Corps?
    Answer. I am generally aware of the CNA report, but I have not had 
an opportunity to review its findings. As discussed earlier, and if 
confirmed, I will be committed to ensuring that the Department 
possesses a robust cadre of military and civilian attorneys.
    Question. What is your understanding of the total numbers of judge 
advocates on Active Duty in the Navy and Marine Corps vis-a-vis the 
Army and the Air Force?
    Answer. It is my understanding that the Navy and Marine Corps have 
fewer judge advocates then the Army and the Air Force. This is due to a 
number of factors, including the size of the Services and the different 
functions performed by the uniformed lawyers within each Service. For 
example, many of the legal functions performed by judge advocates in 
the Army and Air Force are performed by attorneys in the OGC of the 
Department of the Navy. Additionally, the Marine Corps does not have a 
separate Judge Advocate Corps. As a result, all of their judge 
advocates also fill line billets at various stages of their careers.
    Question. If confirmed, will you review the judge advocate manning 
within the Navy and Marine Corps, determine whether current active-duty 
strengths are adequate to support their missions, and support the 
independent review panel in the accomplishment of its study and 
recommendations?
    Answer. Yes, I will.
                   role of women in military service
    Question. The Chief of Naval Operations recently stated that the 
Navy will assign female sailors to submarines starting in 2011.
    What is your understanding of the issues that must be resolved in 
order for women to successfully perform submarine duty?
    Answer. Other than the need to provide official notification to 
Congress, I am not currently aware of any legal issues which need to be 
addressed in order to implement this policy. I understand, however, 
that there are manpower and personnel considerations which must be 
addressed to implement the policy successfully.
    Question. If you are confirmed, what role would you expect to have 
in changing this policy, and what would your role, if any, be in 
implementing the new policy?
    Answer. If confirmed, I would expect to coordinate with the Judge 
Advocate General of the Navy to advise the Secretary of the Navy on any 
legal implications associated with the implementation of the new 
policy.
    Question. What are your views on opening additional specialties to 
women serving in the Navy or the Marine Corps?
    Answer. At this time, I am not aware of any legal impediments to 
opening additional specialties to women within the Navy or the Marine 
Corps.
                            women in combat
    Question. Current DOD policies regarding the combat role of women 
in uniform have been in effect since 1994.
    What is your understanding of the conclusions and lessons that have 
been learned from Operation Iraqi Freedom and Operation Enduring 
Freedom about the feasibility of current policies regarding women in 
combat?
    Answer. I have not had an opportunity to review any lessons learned 
from the participation of women in Operation Iraqi Freedom and 
Operation Enduring Freedom. If confirmed, I will make the review of the 
current policies a priority, seek to be informed by field experiences 
as relayed by the Judge Advocate General of the Navy and the Staff 
Judge Advocate to the Commandant of the Marine Corps, and work directly 
with the Secretary and Under Secretary of the Navy to address any legal 
concerns that may have arisen from the review of current policies in 
the context of these operations. At the end of this process, I would 
expect to propose to the Secretary and Under Secretary of the Navy 
changes to current policy, if they are warranted.
    Question. What is your assessment of Navy and Marine Corps 
compliance with the requirements of laws relating to women in combat?
    Answer. It is my understanding that the Navy and Marine Corps are 
in compliance with these requirements.
    Question. In your view, should the current policy regarding 
assignment of women in combat be revised to reflect the realities of 
the modern battlefield, effective counter-insurgency requirements, and 
changing societal expectations regarding roles for female sailors and 
marines?
    Answer. I have not had an opportunity to review this matter in 
depth. If confirmed, I will work directly with the Secretary and Under 
Secretary of the Navy to address any legal concerns associated with any 
proposed changes to this policy.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD and the Department of the Navy regarding religious 
practices in the military?
    Answer. It is my understanding that current policies and programs 
regarding religious practices are initiated through the Secretary of 
Defense and his staff. Each Service Secretary may supplement the 
overall guidance.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I have not had an opportunity to review these policies. If 
confirmed, I am committed to reviewing the current policies to ensure 
that an appropriate balance has been reached between these important 
interests.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. See my response to the immediately preceding question.
                       homosexual conduct policy
    Question. The current Homosexual Conduct Policy, commonly referred 
to as ``Don't Ask, Don't Tell,'' went into effect in February 1994 
after months of congressional hearings and debate resulting in the 
enactment of a Federal statute (title 10 U.S.C. section 654). Although 
there have been some changes in how this policy has been implemented, 
the basic policy has not changed. President Obama has made it clear 
that he intends to work with the military and Congress to repeal the 
policy.
    What is your view of the current policy, as stated in section 654?
    Answer. I have not had an opportunity to review the current policy. 
It is my understanding, though, that the policy is currently being 
reviewed within the administration and DOD.
    Question. What is your view on repealing or changing this policy?
    Answer. The current policy and any proposed changes to it will 
likely have significant legal and other implications. Without having 
had an opportunity to become fully informed about this policy, its 
implementation, and the ongoing review by DOD, I am not in a position 
at this time to offer an informed view on the effects of repealing or 
changing this policy.
    Question. In your view, would changing this policy have an adverse 
impact on good order and discipline in the military?
    Answer. See my answer to the immediately preceding question.
    Question. If confirmed, what role would you play in efforts to 
repeal or change this policy?
    Answer. If confirmed, I would expect to advise the Secretary of the 
Navy on all legal matters associated with the repeal or change to this 
policy.
    Question. If the policy is changed by Congress, would you recommend 
a phase-in period for implementation of the new policy?
    Answer. See my answer to the preceding question regarding my view 
on repealing or changing the current policy.
    Question. If confirmed, what role will you play in implementing a 
new policy?
    Answer. If confirmed, I would expect to advise the Secretary of the 
Navy on all legal matters associated with the implementation of a new 
policy.
         role in the officer promotion and confirmation process
    Question. What is your understanding of the role of the General 
Counsel of the Navy in ensuring the integrity and proper functioning of 
the officer promotion process?
    Answer. Military personnel matters are primarily under the 
cognizance of the respective service Judge Advocates. The Secretary of 
the Navy is responsible for the proper functioning of the Department of 
the Navy's promotion selection process. If confirmed, I would envision 
a close working relationship with the Judge Advocate General of the 
Navy and Staff Judge Advocate to the Commandant of the Marine Corps to 
resolve issues of policy and matters pertaining to specific cases.
    Question. Do you see any need for change in this role?
    Answer. I am not aware of any need for change at this time.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination for promotion and certain assignments.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. General and flag officer nominations are also within the 
primary cognizance of the Judge Advocate Generals of each Military 
Service. If confirmed, and when requested, I would provide advice on 
cases of Department of the Navy nominees with adverse, or potentially 
adverse, information in order to ensure that such information is 
properly evaluated and reported to the Senate Armed Services Committee.
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Navy in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. See my answer to the preceding question.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Navy in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. See my answer to the preceding question.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel and attorneys assigned to the OGC play in military personnel 
policy and individual cases, including cases before the Board for 
Correction of Naval Records?
    Answer. The General Counsel plays an important role in ensuring 
that military personnel polices are consistent with law and implemented 
in a fair and consistent manner. If confirmed, I would work closely 
with the Secretary of the Navy, the Assistant Secretary of the Navy 
(Manpower and Reserve Affairs) to ensure that these policies are 
formulated and applied in a fair and consistent manner.
             sexual assault prevention and response policy
    Question. Numerous cases of sexual misconduct involving 
servicemembers have been reported over the last several years. Many 
victims and their advocates contend that they were victimized twice: 
first by attackers in their own ranks and then by unresponsive or 
inadequate military treatment. They asserted that the military failed 
to respond appropriately by providing basic services, including medical 
attention and criminal investigations of their charges.
    What is your understanding of the resources and programs the Navy 
and Marine Corps have in place in deployed locations to offer victims 
of sexual assaults the medical, psychological, and legal help they 
need?
    Answer. It is my understanding that the Department has endeavored 
to improve the delivery of assistance to all victims of sexual assault, 
wherever they are located. I also know that one of the Secretary of the 
Navy's top manpower priorities is eliminating sexual assaults from Navy 
and Marine Corps ranks and placing the total force on the cutting edge 
of all sexual assault prevention and response-related programs. If 
confirmed, I am committed to reviewing the Department of the Navy's 
policies and procedures to ensure that victims of sexual assault 
receive the care and services that they need.
    Question. What is your view of the steps the Navy and Marine Corps 
have taken to prevent sexual assaults on female soldiers at their home 
stations and when they are deployed?
    Answer. The prevention of sexual assault has been a key issue for 
the Department of the Navy for some time. It is my understanding that 
the Department of the Navy has implemented measures which are designed 
to cultivate a culturally aware and educated work environment within 
the Department that is intolerant of sexual assault. If confirmed, I am 
committed to enforcing a climate that is intolerant of sexual assault.
    Question. What is your view of the adequacy of the training and 
resources the Navy and Marine Corps have in place to investigate and 
respond to allegations of sexual assault?
    Answer. Although I know the Department of the Navy is committed to 
eliminating sexual assaults from within its ranks, I have not had the 
opportunity to review the Department's communication, training, and 
education strategies. If confirmed, I will review this program and 
provide oversight in all areas under my authority to prevent sexual 
assaults and protect sexual assault victims.
    Question. Do you consider the current Navy and Marine Corps sexual 
assault policies and procedures, particularly those on confidential 
reporting, to be effective?
    Answer. I have not had the opportunity to study the effectiveness 
of Navy and Marine Corps confidential reporting policies and 
procedures. If confirmed, I will study these policies and procedures to 
ensure the Department of the Navy continues to promote programs which 
assist victims and encourage the reporting of sexual assaults.
    Question. Specifically, do you think Sexual Assault Response 
Coordinators should be afforded a confidentiality privilege in order to 
help them perform their duties more effectively?
    Answer. I have not had the opportunity to review the specific role 
of Sexual Assault Response Coordinators within the Department of the 
Navy's overall sexual assault prevention and response program. If 
confirmed, I will review all aspects of the Department of the Navy's 
program to ensure that all legal means are employed to support victims 
and investigate alleged offenders fully and fairly.
                        whistleblower protection
    Question. Section 1034 of title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. It is my understanding that the Department of the Navy 
fully implements applicable law, regulations, and rules on 
whistleblower protections. If confirmed, I, in concert with the Navy 
JAG, will act to ensure that prospective commanding and executive 
officers are briefed before they take their positions and continue to 
receive training during their commands on the need to protect 
servicemembers who report misconduct. I, in concert with the Navy JAG, 
will further act to ensure that military members whose actions are 
protected are not subject to illegal reprisals or retaliation. If a 
case of illegal reprisal comes to my attention, I will work to ensure 
that it is addressed in accordance with the law.
                   support to naval inspector general
    Question. What role, if any, do you think the General Counsel of 
the Navy should have in reviewing the investigations and 
recommendations of the Naval Inspector General?
    Answer. The General Counsel must provide independent and objective 
legal advice to the Secretary and Under Secretary of the Navy 
concerning the Inspector General's duties and responsibilities. This 
execution of this obligation, however, must respect the Inspector 
General's independence and not infringe upon the Inspector General's 
authority. If confirmed, I will establish a productive working 
relationship with the Naval Inspector General and the Deputy Naval 
Inspector General for Marine Corps matters, while maintaining strong 
working relationships with the Judge Advocate General of the Navy and 
the Staff Judge Advocate to the Commandant of the Marine Corps.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career progression, substantial mentoring and training 
opportunities, and exposure to a broad spectrum of legal areas and 
leadership responsibilities. By contrast, civilian attorneys in the 
military departments normally do not have established career programs 
and may do the same work for many years, with promotion based solely 
upon longevity and vacancies.
    What is your understanding of the personnel management and career 
development system for civilian attorneys?
    Answer. The Department of the Navy is different from other Military 
Services in that its OGC, which is largely composed of civilian 
attorneys, is responsible for legal support in acquisition, business 
and commercial law, real and personal property law, and other areas. 
Responsibility for several other areas of practice, including 
environmental law, is shared with Navy and Marine Corps judge 
advocates. While I am not familiar with Navy OGC's career development 
program, I understand that Navy OGC is centrally managed, with career 
development for its attorneys being an important priority. If 
confirmed, I will continue to look for ways that the OGC can assist in 
the career development of its civilian attorneys.
    Question. In your view does that system need revision? If so, what 
do you see as the major problems and what changes would you suggest?
    Answer. I am not aware of any necessary revisions at this time.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Navy?
    Answer. The Department of the Navy is the client.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Navy and Marine Corps procurement programs are executed in 
accordance with the law and DOD acquisition policy?
    Answer. The General Counsel plays a critical role in ensuring 
compliance with acquisition laws and current DOD acquisition policy. 
Acquisition integrity is critical to the effectiveness of the 
Department of the Navy's procurement program. It is essential for the 
General Counsel to be actively involved in ensuring compliance to all 
legal obligations in order to ensure this integrity.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by 
Navy and Marine Corps personnel and by Navy and Marine Corps 
contractors?
    Answer. The General Counsel is the Designated Agency Ethics 
Official (DAEO) and the Suspending and Debarring Official (SDO) within 
the Department of the Navy. In his capacity as the DAEO, it is the 
General Counsel's responsibility to ensure that all ethics provisions, 
especially those dealing with conflicts of interest, are properly 
understood and followed within the Department. In his capacity as the 
SDO, the General Counsel ensures that the Department does business only 
with responsible contractors.
    Question. Allegations of fraud and abuse during contingency 
contracting in Iraq and Afghanistan have been widespread.
    What role should the General Counsel play in ensuring that Navy and 
Marine Corps personnel are properly trained in contingency contracting 
and are supervised in the performance of their duties?
    Answer. The General Counsel must have an active role in ensuring 
that all contingency contracting personnel of the Department of the 
Navy are adequately trained and supervised.
                    detecting conflicts of interest
    Question. Personal and organizational conflicts of interest have 
become a major concern. DOD's expanded use of private contractors being 
tasked to perform key functions that the Services had formerly 
performed in-house and the new requirement to fill thousands of DOD 
civilian positions with experienced, qualified individuals present 
challenges in preventing conflicts of interest and the appearance of 
conflicts of interest.
    What do you think the Department of the Navy should do, and what 
should the General Counsel's role be, in ensuring that the Navy and 
Marine Corps identify personal and organizational conflicts of interest 
and take the appropriate steps to avoid or mitigate them?
    Answer. It is incumbent upon the Department to ensure that an 
efficient and effective process for reviewing potential personal and 
organizational conflicts of interest exists. If confirmed, I am 
committed to evaluating the current processes established within the 
Department and, should it be necessary, modifying them so that they can 
effectively identify these potential conflicts of interest.
    Question. What is your understanding of the steps the Navy and 
Marine Corps take to identify and address potential conflicts of 
interest during the hiring process?
    Answer. I am not currently aware of the processes undertaken within 
the Department to identify and address potential conflicts of interest 
in the hiring process. If confirmed, I am committed to evaluating these 
and, should I deem necessary, modifying them so that they can be most 
effective.
    Question. Recent reports have raised concerns about potential 
personal conflicts of interest by contractor employees, including 
retired general and flag officers (``senior mentors'') who advise 
senior government officials.
    What is your understanding of existing statutes and regulations 
pertaining to personal conflicts of interest by contractor employees 
who advise senior government officials?
    Answer. I am familiar with the recent series of press articles 
addressing the concerns associated with the ``senior mentors'' 
programs. It is my understanding that existing ethics regulations are 
intended to address the problems associated with the potential 
conflicts of interest associated with hiring personnel to assist DOD. 
If confirmed, I will make it a high priority to review these 
regulations and the current practice with regard to the hiring of 
``senior mentors'' in order to assist the Secretary in determining what 
changes in policy may need to be made.
    Question. Do you see any need for changes to these statutes and 
regulations?
    Answer. It is my understanding that DOD is currently evaluating the 
hiring practices associated with ``senior mentors'' and that guidance 
may be forthcoming. If confirmed, I am committed to working with the 
General Counsel of DOD and coordinating with the General Counsels of 
the other military departments and agencies on this matter.
    Question. What role do you see for the General Counsel in 
identifying and addressing potential conflicts of interest by employees 
of Navy and Marine Corps contractors?
    Answer. The General Counsel must play a primary role in identifying 
and addressing potential conflicts of interest within the Department of 
the Navy.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Navy attorney or a Navy or Marine Corps judge advocate should take 
if the attorney becomes aware of improper activities by a Department of 
the Navy official who has sought the attorney's legal advice and the 
official is unwilling to follow the attorney's advice?
    Answer. Every attorney of DOD is under a professional obligation to 
comply faithfully with all applicable laws and regulations. It is my 
understanding that there may also be Departmental regulations on this 
obligation. If a Department of the Navy attorney learns of improper 
activities by an official who has sought his or her legal advice but is 
unwilling to follow it, the attorney should immediately notify his or 
her legal supervisor (or the senior lawyer in the next higher level of 
his or her organization) for review and appropriate action by that 
higher level attorney.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed and revised?
    Answer. To my knowledge, the present limits on pro bono activities 
are appropriate. If confirmed, I will encourage attorneys of the 
Department of the Navy to participate in bar association activities for 
their professional development.
    Question. In your view, do the laws, regulations and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Navy provide adequate guidance?
    Answer. If confirmed, I will examine the adequacy of the 
professional responsibility rules for attorneys in the Department, and 
make appropriate modifications or issue supplemental guidance, if 
warranted.
            litigation involving the department of the navy
    Question. What is your understanding of the relationship between 
the Department of the Navy and the Department of Justice with respect 
to litigation involving DOD?
    Answer. The Department of Justice has statutory responsibility to 
represent the United States, its agencies, and its officers, including 
DOD, in all litigation matters. Department of the Navy attorneys will 
assist counsel at the Department of Justice in cases in which the 
Department of the Navy is a party or has an interest.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. I am currently not aware of the need for more independence 
or resources to conduct litigation, but, if confirmed, I will review 
this issue.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate. Military and civilian 
leaders in DOD have consistently articulated their support for 
accession to the Convention and have stressed the benefits for our 
national security.
    What are your views on accession by the United States to UNCLOS?
    Answer. I support U.S. accession to the UNCLOS. It is my 
understanding that there are important national security interests 
furthered by U.S. accession and that this is a priority of the 
Secretary of the Navy, the Chief of Naval Operations, and the 
administration.
    Question. From a national security standpoint, what do you see as 
the legal advantages and disadvantages of the United States being a 
party to UNCLOS?
    Answer. It is my understanding that the UNCLOS secures important 
rights relating to the freedom of navigation. Failure to be a party to 
the Convention forces the United States to rely solely upon customary 
international law to enforce our views relating to international law.
    Question. During testimony before the Senate Armed Services 
Committee in June 2009, Secretary Mabus stated his strong support for 
U.S. accession to UNCLOS.
    What do you see as the role of the General Counsel of the 
Department of the Navy in the accession process?
    Answer. It is my understanding that the Judge Advocate General of 
the Navy has primary responsibility for advising the Secretary on the 
UNCLOS. The Judge Advocate General of the Navy has the responsibility 
within the Department to report directly to the Secretary of the Navy 
on international law as well as matters associated with military 
operations. As such, if confirmed, I would expect that the General 
Counsel's primary responsibility will be to assist the Judge Advocate 
General of the Navy and the Secretary of the Navy in developing their 
strategy to support the accessions process.
    Question. If confirmed, what should you do to support and advance 
the Navy Secretary's desire to join UNCLOS?
    Answer. If confirmed, I will work directly with the Secretary of 
the Navy and provide the guidance and support that he deems necessary 
to advance his desire for accession to the UNCLOS.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
             Question Submitted by Senator Roland W. Burris
              general counsel's role in contracting abuse
    1. Senator Burris. Mr. Oostburg Sanz, what role should the general 
counsel play in addressing allegations of fraud and abuse of 
contracting for the wars in Iraq and Afghanistan?
    Mr. Oostburg Sanz. Fraud and abuse in Department of Defense 
contracting hampers the ability of the warfighter to accomplish mission 
objectives effectively and efficiently. Such attenuation is 
particularly unacceptable during contingency operations and merits the 
full attention of senior leaders.
    With regard to the wars in Iraq and Afghanistan, although the U.S. 
Army is the executive agent for contracting in those theaters, the 
General Counsel of the Department of the Navy plays a critical role in 
addressing fraud and abuse in contracting there. It is my understanding 
that allegations of fraud and abuse in contingency contracting in Iraq 
and Afghanistan involving Department of the Navy personnel and 
contracts are handled by the Acquisition Integrity Office (AIO) under 
the direction of the Assistant General Counsel (Acquisition Integrity), 
a senior executive who reports directly to the General Counsel. AIO 
works closely with the Naval Audit Service and the Naval Criminal 
Investigative Service (NCIS) to develop effective approaches to 
deterring fraud and protecting the Department of the Navy from 
contractors in the United States and overseas whose conduct has 
established that they are not responsible business partners. With 
regard to contingency contracting, I understand that AIO also works 
closely with the Special Inspector General for Iraq Reconstruction.
    If confirmed, combating fraud and abuse in contracting involving 
the Department of the Navy, particularly as it relates to ongoing 
contingency operations, will be a priority for me as I supervise the 
AIO and assist the Under Secretary of the Navy in overseeing the proper 
operation of the NCIS.
                                 ______
                                 
    [The nomination reference of Paul Luis Oostburg Sanz 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Paul Luis Oostburg Sanz, of Maryland, to be General Counsel of the 
Department of the Navy, vice Frank R. Jimenez.
                                 ______
                                 
    [The biographical sketch of Paul Luis Oostburg Sanz, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Paul Luis Oostburg Sanz
                               education

----------------------------------------------------------------------------------------------------------------
                                                                                                   Date Degree
                                                          Dates Attended        Degree Received      Granted
----------------------------------------------------------------------------------------------------------------
Harvard Law School................................         Aug. 1995-May 1999             J.D.       June 1999
Princeton University..............................         Aug. 1994-May 1997           M.P.A.       June 1997
University of Cape Town, South Africa \1\.........            Jan.-Dec. 1990              N/A              N/A
Georgetown University.............................        Aug. 1988-May 1991         B.S.F.S.       June 1991
Midwestern State University \2\...................        Aug. 1987-May 1988              N/A              N/A
----------------------------------------------------------------------------------------------------------------
\1\ I studied at UCT for 1 year as part of a self-designed study abroad program through Georgetown University.
  Although I did not receive a degree from UCT, my studies in South Africa helped me satisfy the curricula
  requirements for obtaining an African Studies Certificate upon graduation from Georgetown University.
\2\ I studied at MSU for my freshman year of college before transferring to Georgetown University.

                           employment record

------------------------------------------------------------------------
                                   Employer        Dates of Employment
------------------------------------------------------------------------
General Counsel..............  House Committee        Jan. 2007-Present
                                on Armed
                                Services.
Democratic Deputy Chief        House Committee      May 2001-Dec. 2006
 Counsel.                       on
                                International
                                Relations.
Judicial Law Clerk...........  U.S. District        Aug. 1999-May 2001
                                court for the
                                District of
                                Puerto Rico.
Summer Associate.............  Wilmer Cutler        May 1999-July 1999
                                Pickering.
Teaching Fellow..............  Harvard             Jan. 19999-May 1999
                                University.
Research Assistant...........  Professor Anne-               Fall 1998
                                Marie
                                Slaughter.
Summer Clerk.................  Treasury            July 1998-Aug. 1998
                                Department.
Summer Associate.............  Chadbourne &         May 1998-July 1998
                                Parke.
Student Attorney.............  Harvard Legal        Aug. 1997-May 1999
                                Aid Bureau.
Summer Graduate Fellow.......  U.S. AID/            May 1997-Aug. 1997
                                Maputo,
                                Mozambique.
Intern.......................  Chief Judge          Feb. 1997-May 1997
                                Anne Thompson.
Graduate Intern..............  Merrill Lynch..     Oct. 1996-Dec. 1996
Summer Associate.............  Ropes & Gray...     June 1996-aug. 1996
Graduate Intern..............  U.S. Embassy/       June 1995-Aug. 1995
                                Monrovia,
                                Liberia.
Project Officer..............  Joint Center        Jan. 1994-July 1994
                                for Political
                                and Economic
                                Studies.
Volunteer....................  Peace Corps....     July 1991-Oct. 1993
------------------------------------------------------------------------

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Paul Luis 
Oostburg Sanz in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul Luis Oostburg Sanz, aka Paul L. Oostburg.

    2. Position to which nominated:
    General Counsel, Department of the Navy.

    3. Date of nomination:
    November 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 21, 1969; Aguadilla, Puerto Rico.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Tonya T. Robinson.

    7. Names and ages of children:
    Keira Luisa Oostburg, age: 2.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.

----------------------------------------------------------------------------------------------------------------
                                                                                                   Date Degree
                                                          Dates Attended        Degree Received      Granted
----------------------------------------------------------------------------------------------------------------
Harvard Law School................................         Aug. 1995-May 1999             J.D.        June 1999
Princeton University..............................         Aug. 1994-May 1997           M.P.A.        June 1997
University of Cape Town, South Africa \1\.........             Jan.-Dec. 1990              N/A              N/A
Georgetown University.............................         Aug. 1988-May 1991         B.S.F.S.        June 1991
Midwestern State University \2\...................         Aug. 1987-May 1988              N/A              N/A
Burkburnett High School...........................         Aug. 1983-May 1987              N/A              N/A
----------------------------------------------------------------------------------------------------------------
\1\ I studied at UCT for 1 year as part of a self-designed study abroad program through Georgetown University.
  Although I did not receive a degree from UCT, my studies in South Africa helped me satisfy the curricula
  requirements for obtaining an African Studies Certificate upon graduation from Georgetown University.
\2\ I studied at MSU for my freshman year of college before transferring to Georgetown University.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
                                               Employer             Location of Work       Dates of Employment
----------------------------------------------------------------------------------------------------------------
General Counsel......................  House Committee on       Washington, DC.........  Jan. 2007-Present
                                        Armed Services.
Democratic Deputy Chief Counsel......  House Committee on       Washington, DC.........  May 2001-Dec. 2006
                                        International
                                        Relations.
Judicial Law Clerk...................  U.S. District Court for  San Juan, PR...........  Aug. 1999-May 2001
                                        the District of Puerto
                                        Rico.
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.

------------------------------------------------------------------------
                                   Employer        Dates of Employment
------------------------------------------------------------------------
Summer Clerk.................  Treasury            July 1998-Aug. 1998
                                Department.
Summer Graduate Fellow.......  U.S. AID/            May 1997-Aug. 1997
                                Maputo,
                                Mozambique.
Graduate Intern..............  U.S. Embassy/       June 1995-Aug. 1995
                                Monrovia,
                                Liberia.
Volunteer....................  Peace Corps....     July 1991-Oct. 1993
------------------------------------------------------------------------


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Maryland Bar.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    John Kerry for President Campaign, Volunteer, 2004.
    Bob Menendez for Senate Campaign, Volunteer, 2006.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Barack Obama for President, 2008, $1,750.
    John Kerry for President, 2004, $400.
    (These contributions include amounts made by my wife Tonya on our 
behalf. The source for this information is the Federal Election 
Commission Web site, http://www.fec.gov/, and it is consistent with our 
recollection.)

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Reginald Lewis Fellowship, Harvard Law School.
    John Parker Compton Fellowship, Princeton University.
    Edmund A. Walsh Scholarship, Georgetown University.
    Magna Cum Laude, Georgetown University.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                           Paul Luis Oostburg Sanz.
    This 15th day of December, 2009.

    [The nomination of Paul Luis Oostburg Sanz was reported to 
the Senate by Chairman Levin on February 2, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 4, 2010.]
                              ----------                              

    [Prepared questions submitted to Jackalyne Pfannenstiel by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols defense reforms have been 
very effective, and I am not aware of the need for any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I am not aware of the need for any modifications to 
Goldwater-Nichols, but if confirmed, I will work with the Secretary of 
the Navy and Under Secretary of the Navy on any proposed changes that 
pertain to Navy installations or the environment.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy for Installations and Environment?
    Answer. The Assistant Secretary of the Navy (Installations and 
Environment) formulates policy and procedures for the effective 
management of the Navy and Marine Corps real property, housing and 
other facilities; environmental protection ashore and afloat; safety 
and occupational health for both military and civilian personnel. This 
position is also responsible for the timely completion of closures and 
realignments of installations under base closure laws.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I possess extensive experience in the public and private 
sectors that translates well to the Department of the Navy. From 2004 
until the beginning of this year, I served as a commissioner and 
Chairman of the California Energy Commission, a State regulatory body 
with authority over power plant licensing, building and appliance 
efficiency standards, and energy policy development. As a commissioner, 
my responsibilities included licensing major new power plants for the 
State. The Energy Commission was the lead environmental agency for 
these major infrastructure projects and we interacted extensively with 
the local communities to minimize and mitigate their impacts. Also, I 
led the development of California's integrated energy policy plan and 
chaired the Governor's Climate Action Team subgroup on Energy and Land 
Use. I participated in the creation of California's low carbon fuel 
standards and spearheaded implementation of the State's solar home 
initiative, creating a working group comprised of home builders and 
solar industry companies. Prior to my role at the Energy Commission, I 
served as an independent energy consultant, providing assistance to 
wind energy development projects, as well as helping local housing 
authorities manage energy costs in public housing facilities. 
Previously, I spent 20 years at Pacific Gas and Electric Company and 
its parent, PG&E Corporation. In 1987, I was promoted to Vice President 
of Strategic Planning at PG&E, the first woman to become a corporate 
officer. In 1988, I led the company's participation in a multi-party 
energy efficiency collaborative proceeding which produced many of 
California's innovative regulatory policies promoting energy efficiency 
and demand response. I am currently a member of the Board of Trustees 
of Clark University and I chair the committee on university facilities. 
I am also a Director of Energy Recovery, Inc., a company that makes 
efficient flow devices for seawater desalination plants.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy for Installations and Environment?
    Answer. I am confident that there is much that I can do to enhance 
my abilities to perform the duties of the Assistant Secretary of the 
Navy for Installations and Environment. If confirmed, I will seek to 
learn more about the individual facilities within my purview, as well 
as the different requirements associated with military construction. 
Using my significant managerial experience, I would expect to parlay 
the expertise and views of those within the Department of the Navy, as 
well as those of the Secretary of Defense and the other Military 
Departments, to develop efficient and effective policies for the 
Department's use of our installations and the environment. If 
confirmed, I will also seek and listen to the advice and counsel of 
Congress, and the communities in which we operate, to find ways to be 
the best steward of the Department of the Navy's properties.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Navy would prescribe for you?
    Answer. If confirmed, I would expect the Secretary of the Navy to 
prescribe the duties and functions stated above. Additionally, I would 
expect that the Secretary will request that I rely upon my years of 
experience in the area of energy development, policy and management to 
assist him in meeting the aggressive energy goals he recently laid out 
for the Department, including increasing our use of alternative energy 
and sailing the ``Great Green Fleet.''
                             relationships
    Question. If confirmed, what would be your professional 
relationship with:
    The Secretary of the Navy.
    Answer. If confirmed, I will seek to carry out the goals and 
priorities of the Secretary of the Navy.
    Question. The Under Secretary of the Navy.
    Answer. If confirmed, I will work directly with the Under Secretary 
and seek his counsel and guidance as I work to support his efforts to 
carry out the goals and priorities of the Secretary of the Navy.
    Question. The Chief of Naval Operations.
    Answer. If confirmed, I will provide the support that the Chief of 
Naval Operations requires to execute his duties and responsibilities 
and achieve the mission of the Navy.
    Question. The Commandant of the Marine Corps.
    Answer. If confirmed, I will provide the support that the 
Commandant requires to execute his duties and responsibilities and 
achieve the mission of the Marine Corps.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. If confirmed, I will work with the Deputy Under Secretary 
of Defense for Installations and Environment to develop and execute the 
policies and initiatives of the President, the Secretary of Defense, 
and the Secretary of the Navy.
    Question. The other Assistant Secretaries of the Navy.
    Answer. If confirmed, I will work as part of the team to ensure 
that we present the best collaborative approach to supporting the goals 
and priorities of the Secretary of the Navy.
    Question. The Assistant Secretaries of the Army and Air Force for 
Installations and Environment.
    Answer. If confirmed, I will work closely with the Assistant 
Secretaries of the Army and Air Force for Installations and Environment 
to strengthen the cooperation between the Services. I will work to 
foster a cordial and productive working relationship with these 
colleagues.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, I will work closely with the General Counsel 
of the Navy to ensure that the programs we execute, and the policies we 
develop are consistent with the law.
    Question. The Judge Advocate General of the Navy.
    Answer. If confirmed, I will work closely with the Judge Advocate 
General of the Navy to ensure that the programs we execute and the 
policies we develop are consistent with the areas of law contained 
within his purview. I would also expect to work directly with the Judge 
Advocate General of the Navy on areas of mutual interest.
    Question. The Director of Naval Energy Policy.
    Answer. If confirmed, I will work with the Director of Naval Energy 
Policy to identify and implement policies and practices that best 
support the needs of the Department of the Navy.
    Question. Commander, Naval Facilities Engineering Command.
    Answer. If confirmed, I will work with the Commander, Naval 
Facilities Engineering Command to identify and implement policies and 
practices that best support the needs of the Department of the Navy.
    Question. Commander, Navy Installations Command.
    Answer. If confirmed, I will work with the Commander, Navy 
Installations Command to identify and implement policies and practices 
that best support the needs of the Department of the Navy, our sailors, 
marines, and their families.
                     major challenges and problems
    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Navy for Installations and Environment?
    Answer. There are many significant challenges confronting the next 
Assistant Secretary of the Navy for Installations and Environment. The 
most significant of these includes the Guam military construction 
projects; the completion of all Base Realignment and Closure (BRAC) 
2005 actions prior to the statutory deadline, ensuring that the 
Department of the Navy has the right infrastructure at the right time 
for the right cost to support the country's warfighters and their 
families, and establishing the programs necessary to meet the 
Department's aggressive energy goals.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to work closely with Congress, the 
Secretary of the Navy, the Chief of Naval Operations, the Commandant of 
the Marine Corps, the Deputy Under Secretary of Defense (Installations 
and Environment), as well as other governmental and nongovernmental 
organizations to devise practicable solutions to address these 
challenges and maximize successful outcomes for all parties involved.
    Question. What do you consider to be the most significant problems 
in the performance of the functions of the Assistant Secretary of the 
Navy for Installations and Environment?
    Answer. I am not aware of any significant problems in the 
performance of the functions of the Assistant Secretary of the Navy for 
Installations and Environment.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will work closely with the Secretary and 
the Under Secretary of the Navy to develop a strategic plan to address 
significant problems that arise.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Navy for Installations and Environment?
    Answer. If confirmed, I will establish priorities consistent with 
those of the President, the Secretary of Defense, and the Secretary of 
the Navy. In broad terms, I will assist the Secretary of the Navy in 
meeting the aggressive energy goals he recently laid out for the 
Department, work closely with Members of Congress and State and local 
officials and the public to remain fully transparent when considering 
projects and processes with environmental impacts, and seek to allocate 
funding to develop the right infrastructure at the right time at the 
right cost to support our warfighters and their families.
    Question. Do you have any specific plans to help improve the 
quality of life for Navy and Marine Corps families who are under 
considerable strain as a result of repeated deployments?
    Answer. Not at this time, but having grown up in a Navy town, I am 
very aware of the tremendous sacrifices made by Navy and Marine Corps 
families. If confirmed, I will be committed to identifying and 
implementing quality of life initiatives.
    Question. The Assistant Secretary of the Navy for Installations and 
Environment has responsibility for, among other things, two largely 
distinct programs--the military construction program and the 
environmental program.
    In the competition for resources inherent in the Defense Department 
budget process, which of these two major programs do you believe should 
have priority in terms of funding? Why?
    Answer. Military construction programs and environmental programs 
are not mutually exclusive. Although they would certainly compete for 
the same limited resources, the development of these programs must be 
done in conjunction with each other. All military construction is 
predicated upon sound environmental planning. Accordingly, these two 
programs must work hand-in-hand to further the strategic vision and 
goals of the Secretary of the Navy.
                         military construction
    Question. Over the last several years, the Department of the Navy 
has had an increasingly larger share of the Defense Department's 
overall military construction (MILCON) program. Initiatives related to 
growing the Marine Corps and the relocation of marines from Okinawa to 
Guam will consume much of the growth over the next several years.
    In addition to those initiatives, which are largely externally 
driven, what would be your highest priorities, if confirmed, for 
allocating military construction funding for the Department of the Navy 
over the next several years?
    Answer. If confirmed, I will seek to allocate funding to develop 
the right infrastructure at the right time at the right cost to support 
our warfighters and their families.
    Question. Do you think these initiatives will consume so much of 
the Department of the Navy MILCON budget that it will crowd out other 
programs such as housing ashore for shipboard sailors, and other 
quality of life programs for sailors, marines, and their families?
    Answer. Although we find ourselves in an austere fiscal 
environment, I am cautiously optimistic that we will be able to meet 
all of these challenges.
                                  guam
    Question. Over the next several years one of the Department of the 
Navy's most significant MILCON investments will be in the relocation of 
8,000 marines and their families from Okinawa to Guam. There are a 
number of provisions enacted in the National Defense Authorization Act 
(NDAA) for Fiscal Year 2010 related to this Guam realignment.
    Does the flexibility included in these provisions provide the 
Secretary of the Navy with the necessary authorities to occupy the 
Futenma Replacement Facility on Okinawa, establish special purpose 
entities to construct infrastructure projects, and provide the 
necessary labor force to complete the $4 billion construction program 
on Guam?
    Answer. I have not had an opportunity to develop a thorough 
understanding of the issues associated with the relocation of marines 
and their families from Okinawa to Guam. From the information that I 
have seen at this point, I generally believe that the Department of the 
Navy is moving along the right track and that the law has provided the 
Department significant flexibility.
    Question. When will the Department of the Navy provide the Senate 
Armed Services Committee with the Guam Master Plan so that the costs 
and timing of construction contracts for the entire project will be 
totally transparent?
    Answer. My understanding is that the Department will be able to 
provide the Guam Master Plan after the Draft Environmental Impact 
Statement (DEIS) is released, currently expected to be in the summer of 
2010.
    Question. What is your understanding of when the Department of the 
Navy anticipates that the Record of Decision (ROD) for the Guam 
Environmental Impact Statement will be signed?
    Answer. I understand that the Department plans to release the ROD 
in the summer of 2010.
                         outlying landing field
    Question. The Department of the Navy has been actively engaged for 
a number of years in seeking another Outlying Landing Field (OLF) to 
augment Naval Auxiliary Landing Field Fentress in support of flight 
operations at Naval Air Station Oceana and Naval Station Norfolk.
    What is your understanding of the current status of the 
Environmental Impact Statement (EIS) for the OLF?
    Answer. It is my understanding that the Navy has delayed the 
release of the DEIS for the Outlying Landing Field and that the 
Outlying Landing Field timeline will now coincide with the commencement 
of the EIS process for homebasing of the F-35C Navy Joint Strike 
Fighter.
    Question. When do you anticipate the ROD will be signed for that 
EIS?
    Answer. I believe that the Outlying Landing Field ROD will be 
signed upon completion of the EIS process, in accordance with the 
National Environmental Policy Act.
    Question. Based on your understanding of the process, when would 
you expect the Department of the Navy to request funds for any land 
acquisition associated with the process?
    Answer. I do not have that information, but I would expect that 
this is being discussed as part of the Department of Defense's (DOD) 
budget planning for submission in the fiscal year 2010 budget.
                     base closure and realignments
    Question. The 2005 Defense BRAC process is currently underway.
    What do you see as the roles and responsibilities of the Department 
of the Navy in implementing BRAC decisions?
    Answer. I believe the Department of the Navy's primary 
responsibility is to ensure that we comply with all BRAC statutory 
requirements.
    Question. What would your role be, if confirmed, in carrying out 
these responsibilities?
    Answer. If confirmed, I will serve as the Department of the Navy's 
primary senior leader charged with meeting our BRAC responsibilities. 
Accordingly, I will work closely with Congress, the Secretary of the 
Navy, the Chief of Naval Operations, the Commandant of the Marine 
Corps, the Deputy Under Secretary of Defense (Installations and 
Environment), as well as other governmental and non-governmental 
organizations as appropriate in order to execute these statutory 
requirements.
    Question. If confirmed, what priorities would you set for the 
process of disposal of any property at Navy and Marine Corps bases 
affected by BRAC decisions?
    Answer. If confirmed, I believe my top priority is to meet the 
statutory deadline of 2011. It is my desire to implement BRAC decisions 
in a timely and fiscally responsible manner while working with 
environmental regulators and local communities to expedite 
environmental clean-up and disposal of the property.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active and 
decisive role in the reuse of property.
    In your view, what are the roles and responsibilities of the 
Department of the Navy within the 2005 BRAC property disposal process 
with respect to working with local communities?
    Answer. I believe that the Department of the Navy is responsible 
for working with local communities to ensure an orderly and transparent 
transition from public ownership to private ownership.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. If confirmed, I would seek to optimize re-use opportunities 
for affected communities and advocate for transitions that are as 
seamless and timely as allowed under current law.
    Question. In your opinion, is the Department of the Navy moving 
aggressively enough to implement the joint basing agreements that were 
mandated by BRAC 2005?
    Answer. I have not been made aware of all of the Department's 
implementation plans. I would expect that the Department is moving 
forward with the other Military Services on an aggressive timeline to 
implement joint basing as mandated by BRAC 2005. If confirmed, I will 
review this progress and ensure that the Navy is moving as aggressively 
as possible.
    Question. What do you see as the main concerns related to the 
implementation of BRAC-directed joint basing agreements?
    Answer. I believe the main concerns are implementing these 
agreements in accordance with BRAC timelines and making sure that 
common levels of support are provided to our warfighters and families 
that live and work on our bases.
    Question. Will the Department of the Navy have any trouble 
finishing the BRAC 2005 round on time?
    Answer. I expect that the Department of the Navy has an aggressive 
set of plans and milestones to implement BRAC 2005, and it is my 
understanding that the Department is on track to meet the 2011 
statutory deadline.
    Question. Although the Department of the Navy has made good 
progress in turning over properties from prior rounds of BRAC to local 
communities, there remain several properties that are both valuable and 
problematic. Congress provided new authority in the NDAA for Fiscal 
Year 2010 aimed at expediting the process and at removing legislative 
impediments that have caused friction between the Department and local 
communities.
    Do you believe that those new authorities will be sufficient to 
jump start these long stalled negotiations?
    Answer. I understand that there are a number of conveyances that 
have been delayed for long periods of time. I believe that there now 
exists an appropriate ``toolbox'' of authorities to help convey all 
BRAC property.
    Question. What is a reasonable period of time to show substantial 
progress?
    Answer. I have not had an opportunity to review the status of all 
conveyances, so I am unable to make such an assessment; however, if 
confirmed, I will study each conveyance--particularly those at critical 
stages of negotiation--to set forth a reasonable period of time to show 
substantial progress.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in the past have 
testified that the Military Services under-invest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of under-investment in 
DOD installations has led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    If confirmed, what recommendations would you have for restoring and 
preserving the quality of our infrastructure?
    Answer. I have not had an opportunity to study what new approaches 
might benefit the Department of the Navy's ability to restore and 
preserve infrastructure. If confirmed, I will closely examine the way 
that we manage our inventory, and will work with the Secretary of the 
Navy and the Chief of Naval Operations to make sure the quality of our 
infrastructure is the highest possible.
    Question. This underinvestment in infrastructure is particularly 
acute in naval shipyard facilities. If confirmed, how do you plan on 
addressing this shortfall?
    Answer. I have not had an opportunity to study the extent of the 
investment in our naval shipyard facilities. If confirmed, I will work 
closely with ASN (RD&A) and the Chief of Naval Operations to develop a 
plan for addressing this matter.
                          enhanced use leases
    Question. Congress has provided the authority for each of the 
Service Secretaries to lease underutilized non-excess property and to 
use revenues generated by those leases to enhance infrastructure and 
operating costs on those installations. This so-called ``enhanced use 
lease'' (EUL) authority is being used in different ways and for 
different purposes by each of the Military Departments.
    What is your understanding of the EUL authority?
    Answer. My understanding is that the enhanced use lease authority 
is a valuable tool in the Department's infrastructure management 
toolbox. My understanding is that the Navy can use this authority to 
partner with industry and the outside community to maximize the use of 
Department property.
    Question. What do you see as the future of the Department of the 
Navy's EUL program?
    Answer. I understand that there are several promising EUL 
opportunities that the Department of the Navy is currently examining.
    Question. What Navy and Marine Corps EUL projects do you see as 
most viable in the near term?
    Answer. Because I am not aware of all the current projects or those 
projects being considered, I could not identify the most viable in the 
near term. If confirmed, I would need to examine all of our projects 
more fully before making such an assessment.
    Question. If confirmed, what will be the main concentration of the 
EUL program?
    Answer. Broadly speaking, if confirmed, I will utilize the EUL 
program to ensure our warfighters and their families have the highest 
quality environment in which to live and work and that the Department's 
real estate is put to the highest valued uses.
    Question. Will you consider the authority to provide support to 
energy initiatives?
    Answer. If confirmed, I would consider this authority for a wide 
range of uses, including energy initiatives. I believe that the 
enhanced use lease authority appears well suited to putting energy 
initiatives in place at many bases around the world.
    Question. Will you continue to focus on the construction of 
facilities and in-kind reimbursement to base operating costs?
    Answer. I understand that accepting construction of facilities and 
in-kind reimbursement to base operating costs is a proven way to 
structure lease consideration, but each EUL proposal is different. If 
confirmed, I will be open to considering any package that makes a 
specific proposal work.
    Question. The Congressional Budget Office has expressed concern 
that EUL authority could be used to acquire expensive facilities 
through long-term leases that commit DOD to make payments (rather than 
receiving payments) over an extended period of time.
    Do you believe that it would be appropriate to use EUL authority to 
commit future-years DOD funds for long-term projects to acquire 
facilities that have not received approval through the normal budgeting 
process?
    Answer. I have not yet had an opportunity to study this issue, but 
if confirmed, I certainly will do so.
    Question. If confirmed, how would you address proposals to use EUL 
authority in this manner?
    Answer. Since I have not had an opportunity to study this issue, I 
do not know how I would address such proposals if confirmed.
                         base operating support
    Question. What is your understanding of the base operating support 
requirements of the Department of the Navy and Marine Corps?
    Answer. My understanding is that the base operating support 
requirements of the Department of the Navy are critical to the overall 
mission readiness of our Navy and our Marine Corps. These requirements 
enable a wide spectrum of support programs and initiatives ranging from 
the energy that runs our bases to the child care centers that look 
after our family members.
    Question. In your view, is the Department of the Navy receiving 
adequate funding for base operating support?
    Answer. I have not had an opportunity to review base operating 
support funding in detail, so I cannot make specific judgments or 
assessments about the adequacy of funding for such a large and complex 
set of requirements. If confirmed, I will closely examine funding 
levels to ensure the highest quality living and working conditions for 
our sailors, marines, and their families.
    Question. How might the Department of the Navy distribute base 
operating funds to best ensure sound investment of constrained 
resources?
    Answer. I do not yet have an understanding of the options available 
to distribute base operating funds. If confirmed, I am committed to 
learning the methods and processes we have in place across the 
Department to guide our investment decisions and our distribution of 
resources.
                    family housing and privatization
    Question. In recent years, DOD and Congress have taken significant 
steps to improve family housing. The housing privatization program was 
created as an alternative approach to speed the improvement of military 
family housing and relieve base commanders of the burden of managing 
family housing. If confirmed for the position of Assistant Secretary of 
the Navy for Installations and Environment you will have a key role in 
decisions regarding military family housing.
    What are your impressions of the overall quality and sufficiency of 
Navy and Marine Corps family housing both in the United States and 
abroad?
    Answer. My initial overall impressions of the quality and capacity 
of family housing are extremely positive. I've seen that the Department 
of the Navy has taken huge strides in just the past few years to 
improving the quality and amount of our housing inventory.
    Question. What are your views regarding the privatization of family 
housing?
    Answer. I understand that family housing privatization has been a 
great success story that has allowed the Department to partner with 
private industry to leverage their expertise and market incentives for 
the benefit of our sailors, marines, and their families.
    Question. What is your view of the structure and general goals of 
the Department of the Navy's current housing privatization program?
    Answer. I believe the structure and general goals of the 
Department's housing privatization program are sound.
    Question. Do you believe the housing program should be modified in 
any way? If so, how?
    Answer. I am not currently aware of any necessary modifications to 
the housing program.
                       environmental restoration
    Question. Over the past several years, the Department of the Navy's 
environmental restoration budget request has been trending down from 
about $300 million in 2008 to just under $286 million for 2010 despite 
the fact that the Department of the Navy still has substantial cleanup 
obligations.
    What do you see as the main priorities for clean-up within the 
Department of the Navy program?
    Answer. The Department of the Navy's priorities for clean-up are 
established by the Secretary of the Navy, and, if confirmed, I will 
work closely with the Secretary to ensure that those priorities are 
implemented.
    Question. What will you do to ensure that adequate funding is 
requested and received so that clean-ups under the Installation 
Restoration Program and under the Military Munitions Remediation 
Program continue apace?
    Answer. If confirmed, I will ensure that I fully understand the 
clean-up priorities, as established by the Secretary of the Navy, and 
will work with the Secretary, as well as Members of Congress, to ensure 
that adequate funding for clean-up is both requested and received.
    Question. In August 2009, the Deputy Under Secretary of Defense for 
Installations and Environment signed a memorandum that sets forth the 
benefits of green and sustainable remediation practices and encourages 
the military departments to consider and implement such strategies 
where appropriate. The Department of the Navy continues to employ dig 
and haul strategies at large cleanup sites. One such site is Camp 
Pendleton's Stuart Mesa, a 400-acre site at which bioremediation was 
considered but rejected in favor of digging up, removing and disposing 
of the contaminated soil.
    What is your view of bioremediation technologies and other 
sustainable remediation strategies, in general?
    Answer. I believe bioremediation is an exciting possibility which, 
as it continues to be developed, could present a viable alternative to 
current ``dig and haul'' techniques. It is my understanding that the 
bioremediation project at Stuart Mesa was not as effective as hoped. As 
bioremediation technologies continue to be developed, however, I am 
hopeful that they can attain a level of effectiveness where they can be 
employed more widely.
    Question. If confirmed, what will you do to ensure the Department 
of the Navy actively considers and implements green and sustainable 
remediation strategies where appropriate?
    Answer. If confirmed, I will weigh all viable options when 
considering clean-up technologies. The priority is to ensure a safe and 
effective restoration of the site, and if green and sustainable 
strategies prove to be effective, they should be considered as viable 
alternatives.
                past water contamination at camp lejeune
    Question. For more than 10 years, the Department of the Navy has 
been trying to understand and resolve issues associated with past water 
contamination suspected at Camp Lejeune in North Carolina. However, 
aspects of this matter remain unresolved, including the nature and 
extent of various scientific studies into the potential human exposure.
    If confirmed, what will you do to help ensure that all reasonable 
actions are taken to resolve this matter as expeditiously as possible?
    Answer. The Department of the Navy is committed to ensuring the 
health and safety of all its personnel--both past and present. I know 
that the Department has commissioned numerous scientific studies to 
inquire into a possible connection between past water contamination at 
Camp Lejeune and health issues of personnel who served there. I have 
not, however, been made privy to their results. If confirmed, I will 
ensure that the Department, using the information from these studies, 
acts promptly and in accordance with all applicable laws to resolve 
this important matter.
                 encroachment on military installations
    Question. Encroachment by commercial and residential development on 
military installations has negatively impacted Navy and Marine Corps 
operations at military airfields and training ranges and, as has been 
seen with Navy efforts to locate a new Outlying Landing Field on the 
east coast, development of new facilities can be problematic.
    What do you see as the main constraints on the Department of the 
Navy's ability to use its facilities, including training ranges?
    Answer. I am not aware of any constraints on the Department of the 
Navy's ability to use its facilities. I believe that the Department has 
completed or is completing EISs for its training ranges, and that these 
ranges are operated in accordance with the results.
    Question. If confirmed, what policies or steps would you take to 
curtail the negative impacts on operations and training resulting from 
encroachment?
    Answer. If confirmed, I would work closely with Federal, State, and 
local entities to ensure that the needs of the Department are properly 
balanced against the needs of local communities adjacent to our 
installations.
    Question. How can the Department of the Navy address the issues of 
encroachment around its bases in the United States, particularly with 
respect to encroachment caused by residential development?
    Answer. I believe the Department of the Navy must take a two-
pronged approach to addressing issues of encroachment around its bases. 
First, it is important to communicate concerns with local communities. 
Second, where appropriate, the Department should seek to purchase 
additional land surrounding its bases.
                             energy policy
    Question. In October 2009, Secretary Mabus announced various energy 
goals for the Department of the Navy including the creation of a 
``Green Strike Group'' composed of nuclear vessels and ships powered by 
biofuels by 2012 and deploying that fleet by 2016; by 2015, reducing 
petroleum use in its 50,000 commercial vehicle fleet by 50 percent; 
producing at least half the shore-based energy requirements from 
renewable sources, such as solar, wind and ocean generated by the base; 
and by 2020, ensuring at least 40 percent of the Department of the 
Navy's total energy consumption comes from alternative sources.
    If confirmed, what would your responsibilities be for setting and 
implementing energy policy within the Department?
    Answer. If confirmed, my responsibilities would be to support the 
Secretary's Navy Energy Office and work towards meeting the Secretary's 
aggressive energy goals, particularly those goals regarding shore-based 
energy use.
    Question. What do you see as the advantages and disadvantages of 
Secretary Mabus' goals, including the implications for Department of 
the Navy's overall budget both in the near term and over time?
    Answer. I believe that the Secretary's aggressive energy goals can 
provide the entire Department with a clear line of sight, a clear 
objective, and a powerful leadership mandate in the energy arena.
    Question. What renewable technologies and fuel types have the most 
potential for certification and use by aircraft?
    Answer. I do not have enough information at this time to know what 
renewable technologies and fuel types have the greatest potential in an 
aviation setting. If confirmed, I will closely examine this issue.
    Question. With respect to aviation fuel requirements, what 
examples, if any, can you provide of policies or initiatives currently 
in practice that both conserve fuel use and cost while balancing 
appropriate readiness levels and pilot training requirements?
    Answer. I am aware that the Department is working on the 
development of the use of alternative fuels for certain aircraft. I do 
not, however, have enough information at this time to provide in-depth 
analysis of this program.
    Question. What is your view of the adequacy of Department of the 
Navy funding to meet statutory and regulatory energy conservation 
goals?
    Answer. I know that statutory and regulatory conservation goals 
help the Department reduce energy costs; however, I have not had an 
opportunity to study funding levels. If confirmed, I will review 
funding levels with a specific eye toward meeting these goals.
    Question. Do you believe that significant additional funding will 
be needed in future years to meet such goals?
    Answer. I do not know the current funding levels and I have not 
been privy to all of the future initiatives under consideration by 
Secretary Mabus. If confirmed, I will aggressively review this data and 
would ensure that the necessary funding is available to meet these 
goals.
    Question. What is your view of the utility of algae fuels and what 
concerns do you have about their use for the ``green fleet''?
    Answer. I am excited about the possibilities associated with the 
use of algae fuels, but I have not studied the practical application of 
this alternative energy source for the ``Great Green Fleet.'' If 
confirmed, I will study this innovative concept.
    Question. What is your view of the risks of biofueling for algae 
fuels and the relative low fuel density of such fuels, compared to 
currently-used diesel fuels?
    Answer. I have not had an opportunity to study these risks, but if 
confirmed, will do so.
                     implications of climate change
    Question. What do you see as the national security implications of 
climate change for the United States?
    Answer. I know that the Department of the Navy, through the Task 
Force on Climate Change, is studying the issue of climate change and 
its potential effects on national security. One area identified as 
having possible national security implications is how the reduction of 
sea ice in the Arctic will allow for shipping to pass through the 
Arctic.
    Question. What do you believe will be the impact of climate change 
on the Navy and Marine Corps mission?
    Answer. The impact of climate change upon the mission of the Navy 
and Marine Corps would clearly be dependent upon the severity of the 
problem. If climate change results in significant sea level rise, some 
of our shoreline facilities may be negatively impacted.
   department of the navy laboratory and test center recapitalization
    Question. There has been concern over the adequacy of 
recapitalization rates of the Department's laboratory facilities and 
test centers. Historically, Navy technical centers, laboratories, and 
test centers do not appear to have fared well in the internal Navy 
competition for limited military construction and facility sustainment 
funds.
    What metrics would you use to assess the amount of investment in 
the recapitalization of Navy technical centers, laboratories, and test 
centers to determine its adequacy?
    Answer. This is a complicated matter. The recapitalization rates 
issue extends beyond an investment in infrastructure, because it has a 
direct bearing on other areas in the Secretariat, most notably Research 
Development and Acquisition (RD&A). I have not had an opportunity to 
assess the amount of investment required, but if confirmed, I will 
closely examine the issue and work directly with the Under Secretary 
and Assistant Secretaries to determine the appropriate metrics to use.
    Question. How would you propose to address this recapitalization 
issue for the Navy technical centers, laboratories, and test centers?
    Answer. I have not had an opportunity to study the recapitalization 
issue, but if confirmed, I will work with ASN (RD&A) and other 
stakeholders to ensure we properly recapitalize our technical centers, 
laboratories, and test centers.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy for Installations and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Kay Hagan
                              camp lejeune
    1. Senator Hagan. Ms. Pfannenstiel, on December 14, the Director of 
the Agency for Toxic Substances and Disease Registry (ATSDR) sent a 
letter to Acting Assistant Secretary of the Navy for Installations and 
Environment regarding its fiscal year 2010 Annual Plan of Work for Camp 
Lejeune. Gaps in funding remain, in particular the mortality study 
proposed by ATSDR. The letter represents the final step in the dispute 
resolution section of the Memorandum of Understanding between the 
Department of the Navy and ATSDR. ATSDR is the Government agency 
responsible for assessing the presence and nature of health hazards at 
Environmental Protection Agency (EPA) National Priority List sites, 
such as Camp Lejeune. Congressional Research Service (CRS) 
environmental law experts add that the Navy and Marine Corps are 
obligated under Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) to fund all human health studies proposed by 
ATSDR with respect to water contamination around Camp Lejeune--this 
includes the mortality study, despite the fact that it was not 
specified in the National Defense Authorization Act for Fiscal Year 
2008. Recently, Senators Burr, Bill Nelson, LeMieux, and I sent a 
letter to Secretary of the Navy Raymond Mabus urging the Navy to fully 
fund the mortality study. The mortality study is the least expensive of 
all of ATSDR's proposed studies at Camp Lejeune ($1.8 million). It is 
also essential to the scientific validity of the health survey in order 
to understand whether Camp Lejeune residents were adversely affected by 
exposure to contaminated water. What steps will you take to work with 
the North Carolina and Florida Senators to consider funding the 
mortality study?
    Ms. Pfannenstiel. I have not had an opportunity to be thoroughly 
briefed on this issue. If confirmed, I would welcome the opportunity to 
work with these Senators in conjunction with the scientists currently 
working on this matter.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                         environmental concerns
    2. Senator Burris. Ms. Pfannenstiel, what do you foresee will be 
your working relationship with the EPA and other State regulatory 
agencies?
    Ms. Pfannenstiel. If confirmed, I plan to continue the 
collaborative relationships we have with EPA and the State regulatory 
agencies to jointly develop solutions to sustain and improve our 
environment while preserving the Department's ability to train the 
warfighter.

    3. Senator Burris. Ms. Pfannenstiel, once the scientific studies 
for water contamination at Camp Lejeune have been completed, what type 
and level of information-sharing will you do with those affected by the 
contamination and the Secretary of Veterans Affairs?
    Ms. Pfannenstiel. If confirmed, I intend to provide the broadest 
dissemination possible of this information.
                                 ______
                                 
    [The nomination reference of Jackalyne Pfannenstiel 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  December 3, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jackalyne Pfannenstiel, of California, to be an Assistant Secretary 
of the Navy, vice Buddie J. Penn.
                                 ______
                                 
    [The biographical sketch of Jackalyne Pfannenstiel, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Jackalyne Pfannenstiel
                               education
    Clark University, Worcester, MA, Bachelor of Arts, Economics, 1969
    University of Hartford, West Hartford, CT, Master of Arts, 
Economics, 1978
                           employment record
    Consultant, Self-employed, Piedmont, CA, 01/09-Present
    Commissioner and Chairman, California Energy Commission, 
Sacramento, CA, 05/04-01/09
    Consultant, Self-employed, Piedmont, CA, 01/01-05/04
    Vice President, PG&E Corporation, San Francisco, CA, 07/80-12/00
    Economist, California Public Utilities Commission, 02/78-06/80
    Economist, Connecticut Public Utilities Commission, 10/74-01/78
    Statistician, Connecticut Department Social Services, 07/70-10/74
    Teacher, The Stockbridge School, 01/70-06/70
    Substitute Teacher, 09/69-01/70
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Jackalyne 
Pfannenstiel in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jackalyne Pfannenstiel.

    2. Position to which nominated:
    Assistant Secretary of the Navy for Installations and Environment.

    3. Date of nomination:
    December 3, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 7, 1947; Norwich, CT.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    Matthew Richard Deutsch, age 26.
    Steven Randolph Deutsch, age 19.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Norwich Free Academy, Norwich, CT, 1961-1965, High School Diploma, 
1965
    Clark University, Worcester, MA, 1965-1969, BA, Economics, 1969
    University of Hartford, West Hartford, CT, 1974-1978, MA, 
Economics, 1978

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Consultant, Self-employed, Piedmont, CA, 01/09-Present
    Commissioner and Chairman, California Energy Commission, 
Sacramento, CA, 05/04-01/09
    Consultant, Self-employed, Piedmont, CA, 01/01-05/04
    Vice President, PG&E Corporation, San Francisco, CA, 02/87-12/00

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    City of Piedmont, City Center Advisory Committee, 2000-2001

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Trustee, Clark University, Worcester, MA
    Director, Energy Recovery Inc., San Leandro, CA
    Consultant, San Francisco-Shanghai Sister City Committee, San 
Francisco, CA

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    May 2005, California League of Conservation Voters, $250
    July 2005, Democratic National Committee, $100
    November 2005, Bob Foster for Mayor (Long Beach), $250
    March 2006, Ignacio De La Fuente for Mayor (Oakland), $100
    April 2006, Bob Foster for Mayor (Long Beach), $250
    May 2006, Diane Feinstein for Senate, $100
    June 2006, Jerry Brown for Attorney General, $1,000
    October 2006, John Garamendi for Lieutenant Governor, $250
    May 2007, Carol Liu for State Senate, $500
    July 2007, Barack Obama for President, $1,000
    June 2008, Solidarity PAC, $500
    August 2008, Barack Obama for President, $2,300
    June 2009, Equality California, $173

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Clark University, 4-year scholarship, 1965-1969.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Mandating Demand Response,'' Public Utilities Fortnightly, 
January 2008 (with Ahmad Faruqui)
    ``Integrated Energy Policy Report,'' California Energy Commission, 
2007 (Lead Commissioner)
    ``Energy-efficient Buildings,'' Voter, League of Women Voters of 
California, winter 2006
    ``Implementing Marginal Cost Pricing in the Electric Utility 
Industry,'' Applications of Economic Principles in Public Utility 
Industries. University of Michigan, 1981

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    While I have given talks and presentations on energy matters over 
the past 5 years, few have been formal speeches and none have been 
written. Most have been done using Power Point slides and a few, with 
notes, absent slides.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            Jackalyne Pfannenstiel.
    This 15th day of December, 2009.

    [The nomination of Jackalyne Pfannenstiel was reported to 
the Senate by Chairman Levin on February 2, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 4, 2010.]
                              ----------                              

    [Prepared questions submitted to Dr. Donald L. Cook by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                       duties and qualifications
    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Programs?
    Answer. The Deputy Administrator for Defense Programs is primarily 
responsible for maintaining a safe, secure, and effective nuclear 
weapons stockpile. This is accomplished by ensuring the safe and 
efficient operations of the nuclear weapons complex, and preparing 
Defense Programs for the future, to include necessary changes in both 
the nuclear weapons complex and nuclear weapons stockpile in order to 
meet the challenges of the 21st century.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. My undergraduate training in Nuclear Engineering at the 
University of Michigan and graduate training in Plasma Physics at the 
Massachusetts Institute of Technology gave me an understanding and an 
appreciation for both the science and the engineering involved in the 
nuclear weapon program. My entire career has been dedicated to either 
the U.S. or the United Kingdom (U.K.) nuclear deterrent programs. Up 
until my most recent assignment, this covered areas of small science, 
big science, engineering development, major construction projects, 
infrastructure projects and security investments required to meet an 
increased threat. From 2006 to 2009, I served as Managing Director and 
CEO of the Atomic Weapons Establishment (AWE) in the U.K. That 
assignment gave me a good understanding of manufacturing processes for 
special material components, qualification for weapon use, assembly, 
transport, support in service including surveillance, and finally 
decommissioning, dismantlement, disassembly, and disposal. 
Communication and productive interaction with the Ministry of Defence 
(MOD), the local community, nuclear regulatory authorities, and the AWE 
workforce of employees and contractors was important to success. I 
believe my experience in both the U.S. and U.K. qualifies me to perform 
the duties and functions of the Deputy Administrator for Defense 
Programs.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Deputy 
Administrator for Defense Programs?
    Answer. I trust that my background and experience show me to be 
appropriately qualified to be the Deputy Administrator for Defense 
Programs, and I hope the Senate will agree. To enhance my knowledge of 
the current issues facing Defense Programs, if confirmed, I plan to 
immediately engage with those people who can help me better understand 
the complexities and challenges before Defense Programs. This will 
include meeting with staff and managers in key parts of the program, 
both at Headquarters and in the field, along with National Nuclear 
Security Administration (NNSA) and the Department of Energy (DOE) 
management, key partners such as the Department of Defense (DOD), 
Defense Nuclear Facilities Safety Board (DNFSB), and Congress. I 
realize that if I am confirmed, I will be leading an organization with 
a long history of scientific and technical accomplishments--my 
immediate challenge will be to learn how I can continue to lead this 
exceptional group and to help build upon activities and processes that 
can make the organization even more productive than it is today.
    Question. Assuming you are confirmed, what additional or new duties 
and functions, if any, do you expect that the Administrator of NNSA 
would prescribe for you other than those described above?
    Answer. I am unaware of any additional duties and functions that 
the NNSA Administrator would prescribe for me. If confirmed, I will 
work with the Administrator to clarify his expectations and strive to 
be a valued part of the team.
                             relationships
    Question. If confirmed, how will you work with the following 
officials in carrying out your duties:
    The Secretary of Energy, Dr. Steven Chu.
    Answer. I have great respect for Secretary Chu and look forward to 
working with him through the NNSA Administrator on Defense Programs 
issues. The NNSA is fortunate to have a Cabinet Secretary representing 
the United States in the administration who can understand the 
technical complexities of nuclear weapons and who can work with the 
Secretaries of Defense, State, and Homeland Security on cross-cutting 
interagency issues and policies concerning the Nation's security.
    Question. The Deputy Secretary of Energy, Dr. Daniel Poneman.
    Answer. The Deputy Secretary serves as the Department's Chief 
Operating Officer and I expect to have regular interaction on issues 
that affect both NNSA and other organizations within the Department. 
From major construction projects to cyber security to pension policies 
to DOE Orders, there are many issues in which the Deputy Secretary 
plays a key role. I will also expect to work closely with the Under 
Secretary of Energy for Science on scientific matters that cross over 
from NNSA to other parts of the DOE.
    Question. The Other Deputy Administrators of the NNSA--NA-20 not 
nominated; Mr. Ken Baker acting--NA-30 ADM Kirkland Donald, USN.
    Answer. The Deputy Administrators for Defense Nuclear 
Nonproliferation and Naval Reactors would be my peers if confirmed. In 
my role at the Atomic Weapons Establishment, I had accountability for 
working in partnership with U.K. Government authorities in response to 
radiological and nuclear threats to the U.K., and for producing the 
uranium oxide fuel stock for U.K. Trident submarines, so these areas 
are not unfamiliar to me. I plan to meet with the Deputies and 
Associate Administrators to better familiarize myself with the 
individuals and their specific program responsibilities if confirmed.
    Question. The Assistant Secretary of Energy for Environmental 
Management, Dr. Ines R. Triay.
    Answer. The Deputy Administrator for Defense Programs needs to have 
a special working relationship with the Assistant Secretary for 
Environmental Management (EM) in ensuring that NNSA supports and 
facilitates the cleanup of legacy waste and contamination at NNSA 
sites. As we move towards a smaller stockpile, decrease the number of 
sites with special nuclear materials, and consolidate these materials 
across the complex we will need to work hand-in-hand as one Department 
to meet our goals.
    Question. The other relevant Assistant Secretaries of DOE--Patricia 
Hoffman, Office of Electricity Delivery & Energy Reliability (Acting); 
Cathy Zoi, Office of Energy Efficiency & Renewable Energy; Dr. James 
Markowsky, Office of Fossil Energy; Dr. Warren F. Miller, Jr., Office 
of Nuclear Energy; Betty Nolan, Office of Congressional and 
Intergovernmental Affairs (Acting); and David Sandalow, Office of 
Policy and International Affairs.
    Answer. I look forward to working with the other Assistant 
Secretaries within DOE, if confirmed. DOE is a unique place with many 
talented leaders in both NNSA and other DOE organizations. In order to 
be most effective there must be close collaboration. As we move towards 
further diversification at our national laboratories, I see myself 
working with the Office of Science in particular for the greater good 
of NNSA, the Office of Science, and the Nation.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics, Dr. Ashton (Ash) Carter.
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics (AT&L) is the Chairman of the Nuclear Weapons Council 
(NWC)--focal point for the relationship between DOE and DOD. My role 
would be to support the NWC collectively by dealing directly with the 
Under Secretary of Defense (AT&L), the NNSA Administrator (as DOE's 
voting member to the NWC), and the distinguished members from U.S. 
Strategic Command, the Office of the Under Secretary of Defense 
(Policy), and the Vice Chairman of the Joint Chiefs of Staff on all 
NNSA-specific matters relevant to the NWC. Specifically, I would work 
with the Under Secretary of Defense (AT&L) by attending NWC meetings 
and being heavily involved in all NWC matters.
    Question. The Under Secretary of Defense for Policy, Ms. Michele 
Flournoy.
    Answer. The Under Secretary of Defense for Policy is a member of 
the NWC--focal point for the relationship between the DOE and DOD. 
While the NNSA Administrator serves as the NWC voting member for DOE 
and would most likely deal directly with the Under Secretary of Defense 
(Policy), the Deputy Administrator manages all NNSA issues relating to 
Defense Programs. Specifically, I would deal directly with the Under 
Secretary of Defense for Policy on nuclear weapons policy matters, in 
coordination with the NNSA Administrator.
    Question. The Secretaries of the Navy and the Air Force--SECNAV, 
Mr. Raymond Edwin (Ray) Mabus; and SECAF, Mr. Michael (Mike) Donley.
    Answer. Strong partnerships with the Secretaries of the Navy and 
the Air Force are of vital importance when dealing with issues related 
to nuclear security and Defense Programs. If confirmed as the Deputy 
Administrator, I would seek to further cooperative relations with the 
Secretaries of the Navy and the Air Force to help fulfill the NNSA 
mission.
    Question. The Commander of U.S. Strategic Command, General Kevin 
(Chili) Chilton.
    Answer. The Commander of U.S. Strategic Command is a member of NWC. 
The NNSA Administrator and I would deal directly with Gen. Chilton, the 
Commander of U.S. Strategic Command (STRATCOM). The Deputy 
Administrator is fundamentally important to the Strategic Command 
relationship for all nuclear weapon program activities. One of the 
Commander's most important duties related to NNSA is providing the 
Annual Assessment Report to the President--a candid report on the 
safety, effectiveness and expected performance of the nuclear weapons 
stockpile, based on information from Defense Program advisors and the 
national laboratories. Since the STRATCOM Commander is responsible for 
deploying the nuclear weapons stockpile Defense Programs and Strategic 
Command must have a close relationship at many levels. I expect that, 
if confirmed as the Deputy Administrator for Defense Programs, I would 
spend a significant amount of time working with the Commander and his 
staff, particularly during the present period of stockpile changes.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict, Mr. Michael G. (Mike) Vickers; the 
Commander of U.S. Special Operations Command (SOCOM), ADM Eric T. 
Olson, USN.
    Answer. Special Operations and Low Intensity Conflict are included 
in NNSA's overall support to and coordination with the DOD in a number 
of areas. As part of NNSA's support, Defense Programs provided a full-
time resident liaison to Special Operations Command to facilitate its 
access to the unique capabilities of DOE's national laboratories and to 
enhance the already close working relationship with DOE and NNSA. If 
confirmed by the Senate, I will ensure DOE's unique nuclear 
capabilities, skills and assets are properly available to DOD and other 
Federal entities.
    Question. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs, Mr. Andrew (Andy) Weber.
    Answer. The Deputy Administrator for Defense Programs deals with 
the Assistant to the Secretary of Defense for Nuclear, Chemical and 
Biological Defense Programs on a regular basis. The Assistant to the 
Secretary is the Chairman of the NWC Standing and Safety Committee, the 
flag officer or Senior Executive Service ``working level'' group in the 
NWC system. In this capacity, I would expect to spend time working with 
the Assistant to the Secretary, particularly during the present period 
of stockpile changes.
    Question. The Director of the Defense Threat Reduction Agency, Mr. 
Kenneth A. Myers III.
    Answer. The Defense Threat Reduction Agency (DTRA) works with the 
NNSA's Offices of Defense Programs, Defense Nuclear Nonproliferation, 
and Emergency Operations on a number of issues, ranging from individual 
weapon system Project Officer Groups to hosting DTRA-sponsored work at 
NNSA sites and collaborating on nonproliferation issues. If confirmed, 
I would work directly with the Director of DTRA to further our common 
goals.
    Question. Officials in the Intelligence Community.
    Answer. DOE is a member of the Intelligence Community. Within DOE, 
the Director of the Office of Intelligence and Counterintelligence has 
primary responsibility for Departmental interactions with the Director 
of National Intelligence and other Intelligence Community components. I 
am committed to continuing to revitalize our national laboratories and 
production plants into a leaner and more cost-effective Nuclear 
Security Enterprise. However, I am mindful that our design laboratories 
and production facilities are national assets that support a large 
number of defense, security, and intelligence activities. As the role 
of nuclear weapons in our Nation's defense evolves and the threats to 
national security continue to grow, the focus of this enterprise must 
also change and place its tremendous intellectual capacity and unique 
facilities in the service of addressing other challenges related to 
national defense. We are taking steps to move in this direction, 
including functioning as a national science, technology, and systems 
engineering resource to other agencies with national security 
responsibilities. Each of the NNSA national laboratories maintains a 
Field Intelligence Element, responsible for conducting analysis and 
technical work to fulfill DOE's intelligence responsibilities. The 
strong collaborative relationship with other elements of the 
intelligence community, which is already good, will be deepened further 
by improving access to advanced computational capabilities and special 
purpose, low-volume manufacturing capabilities existing in NNSA. If 
confirmed, I will give my strong support to this cooperation and ensure 
that the Intelligence Community continues to have excellent access to 
the national security laboratories and other assets of the Office of 
Defense Programs.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
confronting the Deputy Administrator for Defense Programs?
    Answer. In my view, the major challenges confronting the Deputy 
Administrator for Defense Programs are the changes required in the 
nuclear weapons stockpile and nuclear weapons complex as both continue 
to age. While Defense Programs have made significant improvements in 
meeting near-term commitments, relief on legacy stockpile requirements 
has not been provided. At the same time, modernization of many nuclear 
facilities is necessary due to aging of the facilities, the evolution 
of modern safety standards and the increasing concerns about security 
of nuclear material. Being requirements driven, NNSA needs to 
articulate and refine its plans to change the complex in order to 
support the required stockpile changes, both in the near term of 5 to 
10 years and the longer term of 10 to 30 years, even when the details 
of the future requirements are not known precisely.
    Question. What are the operational challenges and problems, 
including challenges and problems related to safety and security?
    Answer. The operational challenges, in my view, stem from the 
intersection of a lack of detailed knowledge of future requirements and 
the fact that dealing with anything nuclear involves long time-scales 
and substantial costs. Therefore there must be a balance between risk, 
cost, and benefit rather than focusing strictly on the lowest risk 
path. Without this balance, over time, this leads to risk avoidance, 
which proves to be very costly, time-consuming, and unproductive. In my 
view, the major challenges confronting the Deputy Administrator for 
Defense Programs are how best to deal with a large set of 
interconnected cost-benefit-risk tradeoffs across a complex that is 
large, expensive, and old--and in a time when the outputs of the 
complex are required to change. At the very least, these changes 
include: (1) progressing to a smaller stockpile; (2) applying 
recognized--but as yet undeployed--means of improving the safety, 
security, and effectiveness of warheads without changing military 
requirements and without recourse to underground nuclear testing; and 
(3) doing the first and second with a workforce that is nearly 
completely different from the workforce that put the complex and the 
stockpile in place. Safety and security must be an intrinsic part of 
``the job'', not add-ons. It is my view that giving the directors of 
the labs and plants accountability for the ``whats''--the outputs, 
including good safety and security as an inherent part of the job, 
without instructing them on the ``hows''--the process of doing it--
i.e., via DOE orders, would improve not only productive work outputs, 
but also safety and security. This viewpoint is based on personal 
experience in the United States and the United Kingdom.
    Question. Does the fact that production facilities are embedded in 
the national security laboratories impact your approach for sustaining 
safety and security?
    Answer. No. I believe that the consequences of failure to manage 
safety and security may be higher in areas that deal with production of 
special nuclear material components than in Research and Development 
(R&D), but the consequence of loss of classified information may well 
be higher in R&D areas than in manufacturing operations. Additionally, 
the hazards implicit in some R&D operations are just as high as in some 
manufacturing operations. At AWE, I found it interesting that there 
were fewer mistakes made in safety in high hazard manufacturing or R&D 
operations than in lesser hazard manufacturing or R&D operations. Those 
in the high hazard operations recognized they had to be trained and 
aware of the consequences, or they would not be able to make it home at 
the end of the day.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed, I plan to meet the challenges of combining 
near-term deliverable requirements with longer-term changes to the 
complex and the stockpile by articulating the common elements of 
planning scenarios, by setting clear expectations, and through 
consistent personal communications. In my years at AWE, neither I nor 
my executive board had the luxury of ``dodging'' hard choices because 
we were accountable for the outputs to MOD in both the near and far 
terms. If confirmed, I would also continue to strengthen the notion of 
an integrated nuclear weapons complex where everyone has accomplishment 
metrics, is rewarded for success, and accountability is clear.
    Question. If confirmed, what management actions and timelines would 
you establish to address these challenges and problems?
    Answer. If confirmed, I will commit my personal involvement and 
that of Defense Programs management to work aggressively with the 
national security laboratories, production sites, and other interested 
parties such as Congress, DOD, and the DNFSB to deal with the issues 
involving managing benefit, risk, and cost across the nuclear weapons 
complex. I do not yet have a specific timeline in mind with regard to 
management actions, but I will develop one as soon as I am confident I 
understand the specific challenges we face collectively and in the 
individual programs.
    Question. If confirmed, what broad priorities would you establish 
to address the issues that would confront the Deputy Administrator for 
Defense Programs?
    Answer. My highest priorities would be the same as my predecessors 
have had--to maintain the safety, security, and effectiveness of the 
nuclear weapons stockpile while positioning the complex for future 
changes. NNSA must continue to meet its near-term deliverables to DOD 
while looking to the future. I believe NNSA can adequately do both--and 
must in order to fulfill its responsibilities to the Nation.
    Question. In your previous capacity for the United Kingdom Atomic 
Weapons Establishment you were responsible for managing the nuclear 
weapons complex. What aspects of this experience do you believe you 
could apply to address the challenges and problems facing the NNSA 
complex, including challenges and problems relating to operating 
safety?
    Answer. My role as Managing Director and CEO of the Atomic Weapons 
Establishment in the U.K. from 2006 to 2009 gave me a good 
understanding of manufacturing processes for special material 
components, qualification for weapon use, assembly, transport, support 
in service including surveillance, and finally decommissioning, 
dismantlement, disassembly, and disposal. Communication and productive 
interaction with the MOD, the local community, nuclear regulatory 
authorities, and the AWE workforce of employees and contractors was 
important to success. While there are important differences between the 
U.S. and U.K. programs, (8 sites vice 2; 8 site offices vice 1, and 
1,000s of warheads vice hundreds), as the contractor, I had full 
accountability for the operations from R&D through dismantlement, I had 
a single executive board reporting to me, and although I had two 
strongly regulated Nuclear Licensed sites, I was not instructed how to 
do the job in detail or through prescriptive orders. The latter was a 
tremendous benefit. Over the course of 3 years, I developed--with the 
MOD customer--an ``eyes-on, hands-off'' relationship that proved highly 
productive. That is, the MOD managed the contract rather that the 
contractor which allowed me to better do my job. If confirmed I would 
apply appropriate parts of this learning to the U.S. complex, and work 
with the structure as it exists to perform as one integrated complex 
where possible.
                           overall management
    Question. Do you believe that there are any organizational or 
structural issues in the NNSA that should be addressed to improve 
management and operations of the Office of the Deputy Administrator for 
Defense Programs, or that you would address if confirmed? If so, what 
are these issues and how would you address them, if confirmed?
    Answer. Continuous improvement requires innovative thinking and 
fresh ideas. I do not believe in changing just for the sake of change, 
but if there are ideas to improve an area that is not performing or 
functioning adequately well, then I believe the benefit of making a 
change is worth the cost and risk to put it in place. At present, I 
have a concern about two areas. The first is the reporting level for 
the Defense Programs Site Offices. At one time, they reported to the 
head of Defense Programs. Later, when NNSA was formed, they reported to 
the Administrator, but this caused a decoupling of safety and security 
from mission deliverables and it did not work well. Today, the site 
offices report two levels below the Deputy Administrator for Defense 
Programs. I sense that it may be better to have the sites and the site 
offices to report into the same level--the Deputy Administrator level. 
The second concern is the visibility of science within Defense 
Programs. The nuclear deterrent program is inherently a complex, high-
technology program. The quality of understanding of the underlying 
science of weapon performance in an aging stockpile, including safety 
and security, is extremely important. In the event that a CTBT is 
brought forward for consideration, whether ultimately ratified or not, 
a hard examination of the scientific underpinning of warhead knowledge 
will be essential. If confirmed, I will assess the organizational 
structure of Defense Programs and make recommendations to the 
Administrator and Principal Deputy Administrator. I will seek their 
thoughts on potentially improved ways of doing business--if prospective 
changes are viewed to be beneficial, cost effective, and managed.
    Question. Do you believe that the expertise of DOE personnel 
serving outside the NNSA can be helpful to you if confirmed?
    Answer. I strongly believe this to be true and very beneficial. If 
confirmed, I will work with the entire DOE and make full use of the 
resources available within and outside of NNSA. Not only is it required 
that we cooperate in many areas with other parts of the Department, but 
I know there are many personnel that can provide assistance and advice 
helpful to Defense Programs. In particular, I know and look forward to 
working closely with Dr. William Brinkman, Director of the Office of 
Science, Dr. Steven Koonin, Under Secretary for Science, and Dr. Ines 
Triay, Assistant Secretary of Energy for Environmental Management.
    Question. If so, what expertise do you believe would be helpful and 
how would you utilize this expertise if you are confirmed?
    Answer. If confirmed, I will make it a high priority to understand 
the full scope of DOE's available resources. I understand that Defense 
Programs works closely with many offices, such as the Office of 
Engineering and Construction Management; the Office of Health, Safety 
and Security; the Chief Financial Officer; the Office of Environmental 
Management; and DOE's Chief Information Officer. These offices, and 
others within the Department, have expertise that can contribute to the 
success of the missions of the Office of Defense Programs and NNSA.
    Question. Are you aware of any limitations on the authority of the 
Deputy Administrator for Defense Programs to draw on that expertise?
    Answer. There are no limits that I am aware of to drawing on the 
expertise of other offices in DOE. I view these other offices, such as 
the Office of Engineering and Construction Management, the Office of 
Science, and the Office of Health, Safety and Security as important 
assets to the NNSA and Defense Programs. For example, these Offices 
provide valuable external reviews and recommendations regarding our 
activities and facilities.
    Question. What is your view of the extent to which the NNSA is 
bound by the existing rules, regulations, and directives of DOE and 
what flexibility, if any, do you believe you would have in implementing 
such rules, regulations, and directives that would pertain to the 
Office of the Deputy Administrator for Defense Programs?
    Answer. My understanding is that NNSA must comply with rules, 
regulations, and directives issued by the Secretary of Energy and the 
Deputy Secretary. The NNSA Administrator is responsible for ensuring 
that NNSA and its contractors comply with these requirements, and that 
responsibility flows down to the Deputy Administrator for Defense 
Programs. Some rules and regulations provide specific exemption 
procedures that NNSA can invoke if the NNSA Administrator concludes an 
exemption is warranted. In addition, the DOE Departmental Directives 
Program Manual provides a general exemption procedure that allows NNSA 
to deviate from DOE directives. This manual also permits Departmental 
elements, including NNSA, to issue ``supplemental directives'' that may 
be used to implement requirements in directives, assign 
responsibilities and establish procedures within a particular 
Departmental element. Finally, under the NNSA Act, the NNSA 
Administrator has authority to issue NNSA-specific policies, ``unless 
disapproved by the Secretary.''
    Question. NNSA, in large measure, was created in response to 
security lapses at the Los Alamos National Laboratory. However, 
security lapses, particularly at Los Alamos, have continued to occur. 
Section 3212(b)(10) of the National Defense Authorization Act for 
Fiscal Year 2000 provides that the Administrator has authority over, 
and is responsible for all programs and activities of the 
administration, including ``administration of contracts, including the 
management and operations of the nuclear weapons production facilities 
and the national security laboratories.''
    If confirmed, how would you plan to assist the Administrator of the 
NNSA to prevent security lapses at NNSA facilities?
    Answer. Security of nuclear weapons, nuclear material and design 
information is an extremely important challenge of paramount importance 
to national security. I have a good understanding of the nuclear weapon 
program and the likely impact that a loss of classified information or 
material could have on the United States. My knowledge and emphasis on 
nuclear security will help the Administrator, the Chief of Defense 
Nuclear Security, the Associate Administrator for Defense Nuclear 
Security, and the Site Office Managers focus appropriately on the 
importance of security at our sites and while nuclear material is on 
the road in the control of the Office of Secure Transportation. Any 
breech in security could bring grave consequences to our Nation. If 
confirmed, I will do everything in my power to ensure that the complex 
remains safe and secure, and we will take immediate actions to remedy 
any marginal system. Practically speaking, some initiatives such as 
leveraging technology to the fullest extent possible and consolidating 
nuclear materials to fewer locations will take time and funding, but 
they will have a large and positive impact. I commit to being a strong 
advocate for security within the nuclear weapons complex. Although the 
record is not unblemished, I understand that NNSA has made progress in 
this area by holding M&O contractors accountable for lapses and by 
improving Federal oversight of cyber security and the protection of 
classified information. A personal sense of accountability by each 
worker within the nuclear weapons complex is important. At AWE, we 
focused on intensive training of all new recruits as part of their new 
employee training program. Periodic refreshers for existing workers and 
quantitative case studies were useful, but instilling a sense of 
personal accountability is an important goal. If confirmed, I will 
support actions that are improving the current posture.
    Question. The Deputy Administrator for Defense Programs is 
responsible for activities occurring at NNSA laboratories and 
production sites across the country, including ``directing, managing 
and overseeing the nuclear weapons production facilities and the 
national security laboratories.''
    What are your views on the appropriate roles and responsibilities 
of field managers relative to those of Defense Programs Headquarters 
managers in carrying out these responsibilities?
    Answer. If confirmed, I look forward to gaining a thorough 
understanding of the perspectives of both field and Headquarters 
managers. There is generally close cooperation between field and 
Headquarters managers in Defense Programs, with Headquarters setting 
expectations through a number of program and contract mechanisms, while 
field managers provide daily oversight of the contracts and the M&O 
contractors perform the duties. Trust and communication are vital to 
success and essential to productivity and smooth operations.
    Question. What is your view of Defense Programs' organizational 
structure?
    Answer. I do not have a clear view at this time. If confirmed, I 
will take a hard look at the structure, the reporting relationships, 
and the clarity of accountabilities. I think it very important that I 
understand why the structure is what it is, how the current structure 
operates and what potential improvements might be effective before 
recommending any change.
    Question. In your view, is there a well-delineated and consistent 
chain of command and reporting structure from the field staff to 
headquarters staff and from the contractors to Federal officials?
    Answer. From what I have learned to date, I believe there is an 
established chain of command and reporting structure in place at NNSA, 
but to remain strong and effective with new personnel, it needs to be 
constantly utilized and reinforced. If confirmed, I will take a close 
look at the reporting structure, assess its strengths and weaknesses, 
and recommend any changes for improvement that are merited.
    Question. What changes, if any, would you recommend in the Defense 
Programs organization or structure or in the overall NNSA organization 
or structure?
    Answer. At this time, it is my feeling that I do not understand 
adequately the strengths and weaknesses of the current organization 
aside from the two concerns detailed in an answer to a previous 
question. If confirmed, I will take a close look at the DP organization 
and reporting structure and, when completed, recommend any changes for 
improvement that are merited. The review would include, but not be 
limited to, perspectives from Headquarters, Federal Site Offices, and 
NNSA laboratories and plants.
                       weapons programs personnel
    Question. If confirmed, what specific steps would you take to 
retain critical nuclear weapons expertise in both the NNSA and the 
contractor workforce and to attract new expertise?
    Answer. If confirmed, working to retain and develop critical 
nuclear weapons expertise in both the NNSA and the contractor workforce 
will be a high priority of mine. Throughout my own career, I have given 
selected people highly demanding technical and administrative 
challenges because I knew they could accomplish them, and in doing so, 
would grow to become capable of even greater challenges. The most 
advanced experimental and computational facilities, or advanced 
manufacturing facilities, are not worth much without the right people 
to use them. I am impressed with programs such as NNSA's Stockpile 
Stewardship Academic Alliances and Future Leaders Program, and want to 
continue support for them. I support efforts such as mentoring young 
weapon designers, most of whom have never participated in a nuclear 
test, with real work. I believe that some of the best people are drawn 
to the hardest problems. Articulating those problems clearly, so that 
they can be undertaken and solved, will be one of my objectives. In 
addition, if confirmed, I would pursue effective contract mechanisms 
that support cultivation of critical skills at all contractor sites.
    Question. Do you support retaining the capability to re-manufacture 
every component expected to be found in the stockpile in the near term?
    Answer. First and foremost, I support maintaining the safety, 
security, and effectiveness of the nuclear weapons stockpile without a 
return to underground testing. This often requires the re-manufacture 
of components, but sometimes that is not the most prudent approach. 
Planning for stockpile changes and for changes to the nuclear weapon 
complex may eliminate the need to retain the capability to 
remanufacture every component expected to be found in the present 
stockpile. Many components cannot be reproduced because the materials 
are no longer available due to prohibitions on their use by regulation 
or to loss of the tech base that provided them. I have no simple 
prescription to offer. Looking at each weapon system, and at each 
component in each system, is required. As aging continues, the need for 
a more robust surveillance program increases to avoid surprises. The 
Phase 6.X process for assessing weapon system life extension 
requirements is rigorous and comprehensive. Recommendations from life 
extension studies are presented to the President at appropriate stages. 
The President and Congress ultimately make the final decisions 
regarding appropriate steps to take to extend the life of any 
particular nuclear weapon system.
    Question. What do you see as the most pressing re-manufacturing 
needs?
    Answer. In discussions with Defense Programs staff, the most 
pressing remanufacturing needs appear to involve secondaries made at 
the Y-12 National Security Complex, plutonium primaries, and the 
material that sits between the two. These are extremely intricate 
nuclear components that need to be made in quantities high enough to 
satisfy the projected needs of STRATCOM and the Military Services, 
especially if a problem develops in the stockpile. If confirmed, I look 
forward to learning more about these and related issues and 
contributing to a solution.
    Question. In addition to or in lieu of remanufacturing each 
component of a nuclear weapon, what in your view are the activities 
that can sustain nuclear weapons expertise at the national laboratories 
and the manufacturing facilities?
    Answer. I have a view that important capabilities are ultimately 
retained and sharpened by using them. In the work done at the national 
security laboratories for customers outside NNSA, there is the 
opportunity to do engineering development and manufacturing of 
specialty items and precision components, at low volumes, usually with 
much shorter delivery times than are required in the nuclear weapon 
program. Across government, the threat reduction program has challenges 
and needs that can help NNSA keep parts of its nuclear weapons 
expertise sharp. I have personal experience in this area from AWE, but 
it is also the case in the United States.
                     stockpile stewardship program
    Question. The Stockpile Stewardship Program (SSP) has successfully 
supported the annual nuclear weapons certification effort for the last 
17 years. Many new, experimental facilities, including the National 
Ignition Facility and the Dual Axis Radiographic Hydrodynamic Test 
facility are coming on line and have started to be used for 
experimentation.
    In your view, what other capabilities, if any, would be needed to 
ensure that the stockpile is safe, secure and reliable without nuclear 
weapons testing?
    Answer. In my view, the SSP has been successful and is on an 
appropriate path for continued success. Due to the highly integrated 
nature of the SSP and constrained budgets, Defense Programs has not 
planned for much redundancy in capabilities in the future. The National 
Ignition Facility and the Dual Axis Radiographic Hydrodynamic Test 
Facility, and other high profile facilities and capabilities, each play 
a complementary role in the SSP. Together, they provide increased 
confidence in the safety, security and effectiveness of the stockpile 
as their technical capabilities are developed. This confidence is 
subjective and not ``pass/fail''. I trust the ingenuity and 
resourcefulness of the people who make up the SSP will meet the 
challenge to continue to support the stockpile. If confirmed, I will 
work to provide the most appropriate tools for them to do so.
    Question. In your view is the SSP fully coordinated with DOD, and 
if not what would you plan to do if confirmed to improve the 
coordination?
    Answer. In my view, the SSP appears to be well coordinated with 
DOD. There is good communication between DOE and DOD at many levels, 
ranging from routine tasks such as warhead maintenance and surveillance 
to more policy-oriented issues such as stockpile and complex changes. 
If confirmed, I commit to fostering good communications between the 
Departments.
    Question. The NNSA previously supported an effort to develop a new 
nuclear warhead to be a replacement for an existing warhead, without 
nuclear weapons testing.
    In your view what approach would you recommend to maintaining or 
sustaining the stockpile in the future?
    Answer. I believe that the SSP is capable of meeting the challenge 
of making changes to the nuclear weapons stockpile in a number of ways, 
without either changing the military requirements or resorting to 
underground nuclear testing. There is a suite of Life Extension 
approaches, ranging from incremental changes of components to 
replacement of subsystems that could work effectively to extend the 
U.S. nuclear deterrent for decades. At the component level, 
technologies may change without altering fit, form, or function. At the 
subsystem level, technologies and units may change, but without 
altering military requirements. Because there is a ``test pedigree'' 
associated with subsystems, changes may be undertaken with confidence 
without resorting to underground testing. It is my view that one of the 
least desirable approaches to stockpile maintenance is having a weapon 
system that ages in place, while less surveillance is done, and no 
changes are even considered because doing so may be seen as politically 
incorrect. I do not mean to say this is happening, but I do mean to say 
that if it happened, this would be unacceptable. In Richard Feynman's 
words after the Challenger explosion, ``For a successful technology, 
reality must take precedence over public relations, for nature cannot 
be fooled.'' By undertaking a range of life extension approaches--not 
just one--Defense Programs has an opportunity, in concert with the DOD 
and Congress to: (1) reduce the numbers of currently stockpiled 
weapons; (2) incorporate advanced safety and security features to 
maintain positive assurances against theft, loss, and/or misuse of 
these replacement warheads; and (3) improve confidence in the 
effectiveness of the nuclear weapons stockpile through better 
scientific understanding to reduce uncertainties, while making modest 
changes to increase performance margins.
    Question. Have you had the opportunity to review both the 
classified and unclassified summary of the recent JASON report on the 
stockpile life extension program?
    Answer. I have read the unclassified summary of the report but have 
not yet read the classified version.
    Question. If so, what is your view of the report? Are there 
significant aspects of the report with which you disagree?
    Answer. The unclassified summary provides insufficient detail for a 
technical judgment. I intend to read the classified report as soon as 
one is provided to me.
                         complex revitalization
    Question. If confirmed you will play a key role in the steps to 
modernize and downsize the nuclear weapons complex.
    Do you agree that there should be a net reduction in the footprint 
of the nuclear weapons complex?
    Answer. I do agree, based on an expectation that the footprint, 
reduced appropriately over time, should have the expected return of 
cost savings without losing productivity or the ability of Defense 
Programs to meet mission requirements and deliverables. Requirements 
include not just weapon parts, but capabilities as well. The challenge 
that is with the United States today is determining how best to reduce 
the footprint over the next several years without regretting the 
decisions a decade or two from now. Achievement of this objective will 
require improved clarity of future mission requirements and the best 
set of integrated planning tools we can muster.
    Question. If, confirmed, what will be your highest priorities in 
ensuring the modernization of the complex?
    Answer. If confirmed, Complex Revitalization will be a key 
initiative that I will pursue as Deputy Administrator. I also 
understand that NNSA has followed the well-established National 
Environmental Policy Act process for informing its decisions on Complex 
Revitalization and that several important decisions have been made in 
the past 2 years. I will continue to work with our interagency partners 
as we revitalize the nuclear weapons complex to support present and 
future requirements as those requirements become clearer.
                         third-party financing
    Question. If confirmed, will you review all proposals for third-
party financing and ensure that no such proposal will be implemented 
unless it is cost effective and consistent with applicable DOE, Office 
of Management and Budget, and General Services Administration rules and 
regulations?
    Answer. Yes. If confirmed, I would carefully review all proposals 
for third-party financing of Defense Programs facilities and confer 
with all concerned parties, including our congressional committees, to 
ensure that before implementation, any third-party financing proposal 
is cost-effective and consistent with all applicable rules and 
regulations.
                     facilities and infrastructure
    Question. The Facilities and Infrastructure Recapitalization 
Program (FIRP) was established to address long-deferred maintenance 
backlogs in the nuclear weapons complex, particularly at the 
manufacturing facilities.
    Do you believe that this program has been successful?
    Answer. Yes, in large part. I saw first-hand the dedication of NNSA 
employees both at Headquarters and in the Site Offices, as well as the 
dedication of employees at the NNSA sites. Many achievements were made 
in reducing the backlog of deferred maintenance and several key 
reductions in footprint were made across the complex as part of the 
program.
    Question. When the FIRP expires, what in your view is needed to 
ensure that buildings are adequately maintained in the future?
    Answer. I have not been able to have the breadth of discussions yet 
to form an opinion. If confirmed, I will take the time to have the 
required discussions, form a view, and make recommendations to the 
Administrator. We know, however, that maintaining our infrastructure 
suffers from competing priorities in a severely constrained fiscal 
environment. If confirmed, my goal will be to establish a stable 
funding base which we can then manage against as we assess our 
infrastructure needs and priorities.
    Question. The Readiness in the Technical Base and Facilities 
program (RTBF) is responsible for construction and operation of 
facilities. If confirmed, what steps will you take to ensure that 
surplus buildings are torn down or transferred so that they will not 
need long-term maintenance?
    Answer. If confirmed, Complex Revitalization will be a key 
initiative that I will pursue as Deputy Administrator. A central part 
of Complex Revitalization is ensuring that surplus buildings are either 
torn down so that they will not need long-term maintenance or 
transferred to other programs that need them and are committed to 
supporting their proper maintenance. I expect to work closely with the 
Offices of Infrastructure and Environment within the NNSA and 
Environmental Management in DOE (and other organizations) to achieve 
these objectives. I understand that both of these Offices have well-
established programs for dealing with excess facilities. As the former 
Managing Director and Chief Executive Officer of the Atomic Weapons 
Establishment I am familiar with these issues and I will pay close 
attention to these concerns.
    Question. If confirmed, will you support including the cost of 
tearing down those buildings that are being replaced within the total 
project cost of any new construction?
    Answer. If confirmed, I would support steps to minimize financial 
liabilities on the Weapons Activities account by including the cost of 
decommissioning, dismantlement, and demolition of buildings that are 
being replaced within the total project cost of any new construction. 
This was achieved in the Microsystems and Engineering Sciences 
Applications (MESA) project, an area for which I had personal 
accountability while I was still at Sandia National Laboratories, and 
it worked well. To portray the full scope of projects, we must present 
the full scope and cost of new construction, to include demolition of 
old buildings.
    Question. DOE and NNSA often build one of a kind or first of a kind 
buildings. Some of the past construction have a history of being over 
budget and behind schedule and many have run into technical 
difficulties. In addition, new operational facilities must meet the 
operational safety standards of DOE.
    If confirmed, what steps will you take to ensure that NNSA 
construction projects are managed to be completed within budget and on 
time?
    Answer. If confirmed, one of my highest priorities will be to 
demand accountability across the nuclear weapons complex, in both the 
Federal and contractor workforce. We must keep commitments to 
achievement of key milestones for cost and schedule on construction 
projects. I understand that improving project management is one of the 
six ``Focus Areas'' that is already being emphasized by NNSA. I expect 
to learn more about this and the other focus areas, and ask fundamental 
questions such as: (1) do we have the right people in place to do the 
job; (2) are we using all available appropriate resources within NNSA, 
within DOE, and even outside DOE; and (3) are the commitments we have 
made still reasonable (have circumstances or requirements changed, and 
if so, how are they being managed)?
    If confirmed, I will work with the Federal Project Directors within 
NNSA and seek help from all available sources. I recognize that project 
management skills are critical to the success of NNSA construction 
projects. If confirmed, I intend to leverage my 30 years of experience 
working with many outstanding people in the nuclear weapons complex to 
develop and improve Defense Programs' capability in construction 
management. Today, there are proven quantitative methodologies, such as 
Earned Value Management systems, that can identify problematic cost and 
schedule ``trajectories'' at an earlier stage. I look forward to 
meeting with staff from the Office of Facility and Infrastructure 
Acquisition and Operations and the Office of Infrastructure and 
Environment to discuss both general project management within NNSA and 
to review progress on specific high-profile projects.
    Question. What additional costing, project management and design 
skills do you believe are needed in the Federal staff of the Office of 
Defense Programs or in the NNSA?
    Answer. I am not yet in a position to say what additional costing, 
project management, and design skills are needed in the Federal staff 
of Defense Programs or NNSA, but I understand this is an area of 
emphasis within NNSA. Because this is such an important area to the 
success of Complex Revitalization and the very future of the nuclear 
weapons complex, I will ensure that good project management within 
Defense Programs remains a high priority and I will set clear 
expectations and provide support for Federal and contractor staff to 
obtain the skills that are necessary for success. I also believe there 
needs to be a forum where all parties can bring suggestions forward to 
both arrive at the right conclusion, and to ensure the needed buy-in 
and cooperation that will garner broad support.
    Question. At what point in the Critical Decision timeline do you 
believe an independent cost estimate should be performed for a 
construction project, and why?
    Answer. Based on my understanding of the Critical Decision 
timeline, I believe an Independent Cost Estimate should be performed 
for complex and high cost projects prior to setting the project 
baseline at Critical Decision 2 (Approve Performance Baseline), 60-70 
percent design complete. This is early enough in the process to make an 
impact and correct issues, but far enough along that there is 
appropriate fidelity in the estimated project design, scope, and 
schedule.
    Question. If confirmed, will you work to ensure that all design 
issues impacting operational safety requirements are fully resolved 
before Critical Decision 3?
    Answer. If confirmed, I will work to ensure that all design issues 
impacting operational safety requirements are fully resolved well 
before Critical Decision 3 (Approve Start of Construction). Due to the 
importance of operational safety requirements, they should be resolved 
as soon as possible in the design process, and certainly before 
construction begins. This is also consistent with the Department's 
standard, DOE Standard 1189-2008, Integration of Safety into the Design 
Process.
    Question. If confirmed, what steps will you take to ensure that 
nuclear and other operational safety issues are fully addressed in the 
design of new NNSA buildings?
    Answer. If confirmed, I intend to have Defense Programs follow the 
Department's standard, DOE Standard 1189-2008, Integration of Safety 
into the Design Process. This new standard requires early 
identification of Safety Class systems and other safety related 
requirements early in the project life cycle, just after approval of 
Mission Need. These measures ensure that all safety requirements are 
articulated, validated and understood early in the project life cycle.
    Question. What in your view are the construction and maintenance 
priorities for the NNSA?
    Answer. I have not had the opportunity to have the in-depth 
discussions with NNSA staff to form a view, but if confirmed, I will 
work to form an accurate view quickly. On the basis of my current 
understanding, two important, albeit expensive, construction priorities 
are the Uranium Processing Facility (UPF) at the Y-12 National Security 
Complex and the Chemistry and Metallurgy Research Replacement facility 
(CMRR) at Los Alamos National Laboratory.
              stockpile management/life extension programs
    Question. If confirmed, you will be responsible for managing the 
stockpile including the life extension programs for existing nuclear 
warheads.
    What is your general assessment of the effectiveness of the ongoing 
and planned life extension programs?
    Answer. I believe the Life Extension Programs (LEP) are highly 
effective for extending the near-term life of warheads in the nuclear 
weapons stockpile. I am familiar with the LEPs for the W87 
(Intercontinental Ballistic Missile warhead) and the B61-7/11 
(strategic bombs). I understand there are production challenges with 
restarting a unique component needed for the W76 (Submarine Launched 
Ballistic Missile warhead) LEP, but that is being appropriately 
addressed. I understand that defects continue to be discovered in the 
legacy stockpile. The process of significant finding investigations 
(SFI) is used in the way intended to draw conclusions based upon facts 
uncovered in detailed exploration of such defects. The SFI process 
works and provides information that helps guide refurbishment 
schedules. The NPR is scheduled for delivery to Congress February 1, 
2010 and this will also help guide refurbishment schedules. If 
confirmed, I am committed to finding effective ways to support the NPR 
policy.
    Question. How well, in your view, does the nuclear weapons 
complex--encompassing the laboratories and the production sites--
function as an integrated complex and, externally, with DOD in 
executing the life extension programs?
    Answer. My impression is that the nuclear weapons complex, 
including all the sites, works relatively well together and with DOD. I 
understand that there is a strong emphasis on complex-wide milestones 
and that some of the performance fees at the sites are inter-related. 
That is a very strong motivator for integrated success, and one that I 
would plan to continue, if confirmed.
    Question. Do you believe the efficiency with which NNSA manages the 
execution of the life extension programs can be improved, and if so, 
how?
    Answer. I am yet not aware of a specific way to improve the 
management of the Life Extension Programs (LEP), but because of their 
importance to Defense Programs and the continued health of the nuclear 
weapons stockpile, I expect to personally review the execution of the 
LEPs, if confirmed.
    Question. What in your view will be the challenges facing the NNSA 
if it is determined that any individual weapon will require a 
modification, such as a new component for example, to meet safety 
security or reliability requirements?
    Answer. If confirmed, my approach to resolving challenges with 
weapon systems will be to first articulate the challenge facing the 
NNSA, clearly communicate that problem to all stakeholders, including 
our congressional committees and explain the projected way ahead. I 
will then seek support from both the congressional authorizing and 
appropriating committees in an effort to efficiently resolve the 
problem. Parallel to these efforts, I will work to ensure we have the 
human capital and specialized skills necessary to perform the work so 
risk is properly managed.
                     comprehensive test ban treaty
    Question. From a technical perspective do you believe that the 
stockpile can be maintained without the need for a resumption of 
explosive nuclear weapons testing?
    Answer. Yes, in large part due to the increased understanding and 
successes brought about by the SSP and attention given to training 
people in design, development, manufacturing, and qualification in an 
era where nuclear testing has not been done since September 1992. In 
your view what are the essential capabilities that must be in place to 
sustain the stockpile without nuclear weapons testing?
    The essential capabilities are those that are already supported by 
the SSP which evolve as greater understanding of the current stockpile 
improves. If confirmed, I am willing to discuss this further in a 
closed session.
          safety and security of the nuclear weapons stockpile
    Question. The Deputy Administrator for Defense Programs is 
responsible for assuring the safety and security of nuclear weapons 
from a design perspective.
    If confirmed, will you work with DOD to identify necessary options 
to improve the safety and security of nuclear weapons from a design 
perspective?
    Answer. Absolutely. If confirmed, I expect to work closely with all 
of our interagency partners, specifically General Chilton, Commander 
U.S. STRATCOM, as well as the Military Services. I expect to work in 
partnership with these entities to satisfy the requirements set by the 
Military Services. If confirmed, this will be an important part of the 
work that I do as Deputy Administrator for Defense Programs.
 role of the nnsa complex in meeting other national security challenges
    Question. The nuclear weapons complex, as a result of the billions 
spent on expanding capabilities to sustain nuclear weapons, including 
the advance computing capabilities, supports many aspects of national 
security research and development including DOD and the Intelligence 
Community.
    Do you believe that this work in support of others should be 
sustained?
    Answer. Yes. Not only is the work valuable, it is essential to 
attracting people, sustaining skills, and building capabilities to 
support NNSA's mission. I believe strongly in the work done by the NNSA 
national security laboratories for government departments outside the 
NNSA.
    Question. In your view does this work allow the nuclear weapons 
complex to maintain its nuclear skills?
    Answer. Yes. Because the work required by other Government 
departments is often associated with strong technical challenge and 
demanding timescales, it helps sharpen the abilities of those who do 
the work to respond both accurately and quickly.
    Question. Do you believe that there should be any changes or 
improvements to the work for others program such as those identified in 
the recent report of the DOE Inspector General?
    Answer. I have not yet been able to read the report by the DOE 
Inspector General, but I commit to doing this and recommending any 
changes or improvements to the work for others program that I see in 
addition to those in the DOE Inspector General's report.
                  regulation, standards, and oversight
    Question. Concern over what is often deemed excessive or burdensome 
regulations, standards, and oversight, is often expressed with respect 
to the nuclear weapons complex.
    If confirmed will you review the applicable regulations, standards, 
and internal oversight activities and make any necessary changes to 
ensure that the complex is managed safely, securely, and in a cost 
efficient manner?
    Answer. Yes. Based on my experience in both the U.K. and the U.S. 
nuclear weapons enterprises we must find a more practical way to 
accomplish work safely, securely, and efficiently with due respect to 
our environment in order to achieve required program outputs in less 
costly ways.
                defense nuclear facilities safety board
    Question. If confirmed, will you ensure that the DNFSB is provided 
full and complete information on a timely basis to ensure that it can 
execute its statutory responsibilities?
    Answer. Yes. If confirmed, I plan to foster a strong relationship 
and frequent communication with the DNFSB. On a personal note, I, and 
the executive board that reported to me at AWE, worked closely with the 
Nuclear Installations Inspectorate (NII), the key U.K. regulatory body 
for nuclear licensed sites. This rigorous and respectful interaction 
was enabled by mandatory in-depth technical training of all NII 
employees so that peer-to-peer technical discussions and debates were 
possible.
    Question. If confirmed will you work with the DNFSB to resolve any 
technical issues promptly?
    Answer. Yes. It would be unreasonable, though, for me to imply that 
this could be done without consideration of available financial and 
human resources to achieve this objective.
                        notification of congress
    Question. If confirmed, will you notify Congress promptly of any 
significant issues in the safety, security or reliability of the 
nuclear weapons stockpile?
    Answer. Yes. If confirmed, I would promptly notify Congress of any 
issues affecting the nuclear weapons stockpile and nuclear weapons 
complex. I understand that the officials in the Office of Defense 
Programs often brief congressional members and their staffs about the 
state of the stockpile and complex. I would continue that practice, 
whether or not there are emerging issues. Good, accurate communication 
is to everyone's advantage. I pledge to make myself available to 
address issues of concern.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Programs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
             Question Submitted by Senator Roland W. Burris
                          working relationship
    1. Senator Burris. Dr. Cook, what working relationship do you have 
with the Department of Defense's (DOD) Nuclear Regulatory Agency?
    Dr. Cook. The National Nuclear Security Administration (NNSA) has a 
strong relationship with the Department of Defense. The Departments of 
Defense and Energy regulate separately the nuclear facilities within 
the Departments, while the Nuclear Regulatory Commission regulates 
civilian nuclear facilities. While there is not a Nuclear Regulatory 
Agency within DOD, the Defense Nuclear Facilities Safety Board (DNFSB) 
provides information to Congress on Defense Nuclear Facilities both 
within DOD and the Department of Energy, including NNSA. NNSA Defense 
Programs (NA-10) provides regular updates to DNFSB on nuclear 
facilities operated by NNSA contractors at the nuclear weapons 
laboratories, production plants, and the Nevada Test Site. These 
updates include plans and status for upgrades or replacements aimed at 
improvement of safety in the NNSA facilities, many of which were 
originally constructed in the 1940s, 1950s, and 1960s.
    If confirmed, I plan to foster a strong relationship and frequent 
communication with the DNFSB. I would also work with the DNFSB to 
resolve any technical issues promptly, but it would be unreasonable for 
me to imply that this could be done without consideration of available 
financial and human resources to achieve this objective.
                                 ______
                                 
    [The nomination reference of Dr. Donald L. Cook follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  December 3, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Donald L. Cook, of Washington, to be Deputy Administrator for 
Defense Programs, National Nuclear Security Administration, vice Robert 
L. Smolen, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Donald L. Cook, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch by Dr. Donald L. Cook
    Dr. Donald L. Cook served as Managing Director and Chief Executive 
Officer of the Atomic Weapons Establishment (AWE) in the United Kingdom 
(U.K.) from 2006 to 2009. In this capacity, he was accountable for 
AWE's performance on the contract with the U.K. Ministry of Defence, 
which includes support of the U.K. Trident warheads and development and 
sustainment of capability in nuclear weapon design, engineering 
development, manufacturing, qualification, assembly, transport, support 
in service, and finally, decommissioning, dismantlement, and disposal. 
AWE has an annual budget of $1.2 billion, an employee workforce of 
5,000 staff, and is managed by a consortium of Serco, Lockheed Martin, 
and Jacobs Engineering.
    Prior to heading AWE, Dr. Cook worked at Sandia National 
Laboratories, Albuquerque, New Mexico for 28 years in Pulsed Power 
Sciences, Microtechnologies, Infrastructure, and Security. From 1999-
2006, he was Director of the MESA Program Center, accountable for 
design and construction of the Microsystems and Engineering Sciences 
Applications (MESA) complex. In 2003, he assumed Program Director 
responsibilities for Sandia's Infrastructure Program and for Sandia's 
Safeguards and Security Technologies Program, which responded to a new 
Design Basis Threat.
    From 1977-1999, Dr. Cook led efforts in pulsed power accelerator 
design and experimentation, fusion research, hydrodynamics, 
radiography, diagnostic development, and computational code 
development. He managed the Sandia Fusion Research Department from 
1984-1993 and was Director of Pulsed Power Sciences from 1993-1999. 
Work during this period included construction and development of a 
number of accelerators, including the Z-machine.
    Dr. Cook is a graduate of the University of Michigan and the 
Massachusetts Institute of Technology, and a Fellow of the American 
Association for the Advancement of Science and the Institute of 
Physics. He is married to the former Margaret Ann Kramer, with two 
grown daughters, Julia and Cynthia. The Cooks are residents of Seattle, 
WA.
    Dr. Cook is well-qualified for appointment to the position of 
Deputy Administrator for Defense Programs, NNSA/DOE, by virtue of his 
career-long experience and accomplishments in many aspects of the U.S. 
and U.K. nuclear deterrents. These include science, technology, 
engineering, manufacturing, and executive leadership across functions 
required for maintaining the warheads for an effective nuclear 
deterrent while in service. His most recent assignment at AWE was a 
tremendous privilege made possible under the 1958 Mutual Defense 
Agreement between the U.S. and the U.K. Governments.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Donald L. 
Cook in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Donald Lloyd Cook.

    2. Position to which nominated:
    Deputy Administrator for Defense Programs, NNSA.

    3. Date of nomination:
    December 3, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 7, 1948; Ypsilanti, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Margaret Kramer.

    7. Names and ages of children:
    Julia Alison Cook Dombrowski; age 33.
    Cynthia Lauren Cook; age 30.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Michigan, 1966-1970

BSE (Nuclear Engineering), 1970

    Massachusetts Institute of Technology, 1970-1976

SM Nuclear Engineering (Applied Plasma Physics), 1974
ScD Nuclear Engineering (Applied Plasma Physics), 1976

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director of Pulsed PowerSciences, Sandia National Laboratories, 
Albuquerque, NM, 1993-1999.
    Director of MESA Program Center, Sandia National Laboratories, 
Albuquerque, NM, 1999-2006.

From May-December 2005, I was part of the Lockheed Martin-University of 
    Texas bid team for the management and operations of the Los Alamos 
    National Laboratory.

    Managing Director, Atomic Weapons Establishment, Aldermaston, 
United Kingdom, 2006-2009 (Lockheed Martin Corporation is one of three 
parent companies of AWE).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Deployed to DOE Defense Programs Science Council in Washington, DC, 
for 4 months in 1997, while employed by Sandia National Laboratories.
    Sandia National Laboratories (1977-2006).
    Francis Bitter National Magnet Laboratory [MIT] (1976-1977).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Special Advisor to Managing Director, Atomic Weapons Establishment, 
Aldermaston, United Kingdom.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Physical Society (APS), 1970-2009
    Member, American Nuclear Society (ANS), 1977-2009
    Fellow, American Association for the Advancement of Science (AAAS), 
1976-2009
    Fellow, Institute of Physics (IoP), United Kingdom, 2009

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    John Kerry for President, $500
    Tom Udall for Senator, $100
    Barack Obama for President, $100
    Barack Obama Inaugural, $250
    Lockheed Martin political action committee, $1,000, 2008; $750, 
2009

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Eagle Scout, 1963
    Phi Eta Sigma (Undergraduate honor society), 1968
    Tau Beta Pi (Engineering honor society), 1970
    National Defense Education Act (NDEA) Traineeship, 1970-1973
    General Electric Foundation Fellowship, 1974-76
    Sigma Xi (Science honor society), 1976
    SNL Award for excellence in leadership of Inertial Confinement 
Fusion program, 1993
    Fusion Leadership Award (Fusion Power Associates), 1993
    Recognition for outstanding programmatic performance (DOE/SNL), 
1996,1998
    Engineering Achievement Award (NM Society of Professional 
Engineers), 1997
    Recognition of service to Defense Nuclear Security Program (DOE/
NNSA), 2004
    Sandia President's Quality Award (highest level) for MESA Project 
Execution, 2004
    Elected Fellow, American Association for the Advancement of Science 
(AAAS), 2004
    Lockheed Martin Annual Meeting Award (for MESA Project Execution), 
2005
    Lockheed Martin Nova Award (highest) for EVM accreditation of 
Sandia Sites, 2006
    University of Michigan Distinguished Alumni Award (Nuclear 
Engineering), 2008
    Elected Fellow, Institute of Physics (IoP), U.K., 2009

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Numerous Technical Conference Reports and Journal articles; no 
books.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Donald L. Cook.
    This 15th day of December, 2009.

    [The nomination of Dr. Donald L. Cook was reported to the 
Senate by Chairman Levin on May 5, 2010, with the 
recommendation that the nomination be confirmed. As of the date 
this volume was sent to press, Dr. Cook's nomination had not 
yet been confirmed by the Senate.]

                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      
</pre></body></html>
